<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 107TH CONGRESS</title>
<body><pre>[Senate Hearing 107-749]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 107-749
 
        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, 
                     FIRST SESSION, 107TH CONGRESS 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

   DONALD H. RUMSFELD; PAUL D. WOLFOWITZ; DOV S. ZAKHEIM; CHARLES S. 
   ABELL; VICTORIA CLARKE; EDWARD C. ALDRIDGE; WILLIAM J. HAYNES II; 
    POWELL A. MOORE; DR. DAVID S.C. CHU; THOMAS E. WHITE; GORDON R. 
 ENGLAND; DR. JAMES G. ROCHE; ALFRED V. RASCON; DOUGLAS JAY FEITH; DR. 
   JACK DYER CROUCH II; PETER W. RODMAN; SUSAN MORRISEY LIVINGSTONE; 
  JESSIE HILL ROBERSON; THOMAS P. CHRISTIE; ALBERTO J. MORA; DIANE K. 
  MORALES; STEVEN J. MORELLO, SR.; WILLIAM A. NAVAS, JR.; MICHAEL W. 
   WYNNE; DIONEL M. AVILES; REGINALD JUDE BROWN; STEVEN A. CAMBONE; 
MICHAEL MONTELONGO; JOHN J. YOUNG, JR.; JOHN B. STENBIT; DR. RONALD M. 
 SEGA; MICHAEL L. DOMINGUEZ; MICHAEL PARKER; DR. MARIO P. FIORI; H.T. 
 JOHNSON; NELSON F. GIBBS; GEN. JOHN P. JUMPER, USAF; GEN. RICHARD B. 
  MYERS, USAF; GEN. PETER PACE, USMC; GEN. JOHN W. HANDY, USAF; ADM. 
 JAMES O. ELLIS, JR., USN; LINTON F. BROOKS; MARVIN R. SAMBUR; WILLIAM 
 WINKENWERDER, JR.; EVERT BECKNER; MARY L. WALKER; JOSEPH E. SCHMITZ; 
SANDRA L. PACK; R.L. BROWNLEE; DR. DALE KLEIN; PETER B. TEETS; AND GEN. 
                      CLAUDE M. BOLTON, JR., USAF

                               ----------                              

 JANUARY 11; FEBRUARY 27; APRIL 24, 26; MAY 1, 10; JUNE 5, 7, 22, 27; 
   JULY 31; AUGUST 1; SEPTEMBER 13, 25; OCTOBER 11, 23; NOVEMBER 8; 
                            DECEMBER 4, 2001

                               ----------                              

         Printed for the use of the Committee on Armed Services














NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             107TH CONGRESS





















                                                        S. Hrg. 107-749

        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     FIRST SESSION, 107TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

   DONALD H. RUMSFELD; PAUL D. WOLFOWITZ; DOV S. ZAKHEIM; CHARLES S. 
   ABELL; VICTORIA CLARKE; EDWARD C. ALDRIDGE; WILLIAM J. HAYNES II; 
    POWELL A. MOORE; DR. DAVID S.C. CHU; THOMAS E. WHITE; GORDON R. 
 ENGLAND; DR. JAMES G. ROCHE; ALFRED V. RASCON; DOUGLAS JAY FEITH; DR. 
   JACK DYER CROUCH II; PETER W. RODMAN; SUSAN MORRISEY LIVINGSTONE; 
  JESSIE HILL ROBERSON; THOMAS P. CHRISTIE; ALBERTO J. MORA; DIANE K. 
  MORALES; STEVEN J. MORELLO, SR.; WILLIAM A. NAVAS, JR.; MICHAEL W. 
   WYNNE; DIONEL M. AVILES; REGINALD JUDE BROWN; STEVEN A. CAMBONE; 
MICHAEL MONTELONGO; JOHN J. YOUNG, JR.; JOHN B. STENBIT; DR. RONALD M. 
 SEGA; MICHAEL L. DOMINGUEZ; MICHAEL PARKER; DR. MARIO P. FIORI; H.T. 
 JOHNSON; NELSON F. GIBBS; GEN. JOHN P. JUMPER, USAF; GEN. RICHARD B. 
  MYERS, USAF; GEN. PETER PACE, USMC; GEN. JOHN W. HANDY, USAF; ADM. 
 JAMES O. ELLIS, JR., USN; LINTON F. BROOKS; MARVIN R. SAMBUR; WILLIAM 
 WINKENWERDER, JR.; EVERT BECKNER; MARY L. WALKER; JOSEPH E. SCHMITZ; 
SANDRA L. PACK; R.L. BROWNLEE; DR. DALE KLEIN; PETER B. TEETS; AND GEN. 
                      CLAUDE M. BOLTON, JR., USAF

                               __________

 JANUARY 11; FEBRUARY 27; APRIL 24, 26; MAY 1, 10; JUNE 5, 7, 22, 27; 
   JULY 31; AUGUST 1; SEPTEMBER 13, 25; OCTOBER 11, 23; NOVEMBER 8; 
                            DECEMBER 4, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-903 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  































                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Maine
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                  (ii)






















                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            January 11, 2001

Nomination of Donald H. Rumsfeld to be Secretary of Defense......     1

Statements of:

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     9
Fitzgerald, Hon. Peter G., a U.S. Senator from the State of 
  Illinois.......................................................    10
Rumsfeld, Donald H., Nominee to be Secretary, Department of 
  Defense........................................................    13

                           February 27, 2001

Nomination of Dr. Paul D. Wolfowitz to be the Deputy Secretary of 
  Defense........................................................   209

Statements of:

Sarbanes, Hon. Paul R., a U.S. Senator from the State of Maryland   212
Wolfowitz, Dr. Paul D., Nominee to be Deputy Secretary of Defense   214

                             April 24, 2001

Nominations of Dr. Dov S. Zakheim to be Under Secretary of 
  Defense, Comptroller; Charles S. Abell to be Assistant 
  Secretary of Defense for Force Management Policy; and Victoria 
  Clarke to be Assistant Secretary of Defense for Public Affairs.   301

Statements of:

Zakheim, Dr. Dov S., Nominee to be Under Secretary of Defense, 
  Comptroller....................................................   306
Clarke, Victoria, Nominee to be Assistant Secretary of Defense 
  for Public Affairs.............................................   308
Abell, Charles S., Nominee to be Assistant Secretary of Defense 
  for Force Management Policy....................................   309

                             April 26, 2001

Nominations of Edward C. Aldridge to be Under Secretary of 
  Defense for Acquisition and Technology; William J. Haynes II to 
  be General Counsel of the Department of Defense; and Powell A. 
  Moore to be Assistant Secretary of Defense for Legislative 
  Affairs........................................................   371

Statements of:

Thompson, Hon. Fred, a U.S. Senator from the State of Tennessee..   374
Aldridge, Edward C., Nominee to be Under Secretary of Defense for 
  Acquisition and Technology.....................................   376
Moore, Powell A., Nominee to be Assistant Secretary of Defense 
  for Legislative Affairs........................................   381
Haynes, William J. II, Nominee to be General Counsel of the 
  Department of Defense..........................................   382

                                 (iii)
                              May 1, 2001

Pending Military Nominations.....................................   449

                              May 10, 2001

Nomination of Dr. David S.C. Chu to be Under Secretary of Defense 
  for Personnel and Readiness; Thomas E. White to be Secretary of 
  the Army; Gordon R. England to be Secretary of the Navy; Dr. 
  James G. Roche to be Secretary of the Air Force; and Alfred V. 
  Rascon to be Director of Selective Service.....................   455

Statements of:

Sarbanes, Hon. Paul, a U.S. Senator from the State of Maryland...   460
Mikulski, Hon. Barbara, a U.S. Senator from the State of Maryland   461
Gramm, Hon. Phil, a U.S. Senator from the State of Texas.........   462
Bartlett, Hon. Roscoe, a Representative from the State of 
  Maryland.......................................................   462
Chu, Dr. David S.C., Nominee to be Under Secretary of Defense for 
  Personnel and Readiness........................................   464
Hutchison, Hon. Kay Bailey, a U.S. Senator from the State of 
  Texas..........................................................   464
White, Thomas E., Jr., Nominee to be Secretary of the Army.......   466
England, Gordon R., Nominee to be Secretary of the Navy..........   458
Roche, Dr. James G., Nominee to be Secretary of the Air Force....   469
Rascon, Alfred V., Nominee to be Director of Selective Service...   472

                              June 5, 2001

Nomination of Douglas Jay Feith to be Under Secretary of Defense 
  for Policy; Dr. Jack Dyer Crouch II to be Assistant Secretary 
  of Defense for International Security Policy; and Peter W. 
  Rodman to be Assistant Secretary of Defense for International 
  Security Affairs...............................................   581

Statements of:

Feith, Douglas Jay, Nominee to be Under Secretary of Defense for 
  Policy.........................................................   582
Rodman, Peter W., Nominee to be Assistant Secretary of Defense 
  for International Security Affairs.............................   582
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................   584
Bond, Hon. Christopher ``Kit'', a U.S. Senator from the State of 
  Missouri.......................................................   586

                              June 7, 2001

Nominations of Susan Morrisey Livingstone to be Under Secretary 
  of the Navy; Jessie Hill Roberson to be Assistant Secretary of 
  Energy for Environmental Management; and Thomas P. Christie to 
  be Director of Operational Test and Evaluation, Department of 
  Defense........................................................   867

Statements of:

Livingstone, Susan Morrisey, Nominee to be Under Secretary of the 
  Navy...........................................................   875
Roberson, Jessie Hill, Nominee to be Assistant Secretary of 
  Energy for Environmental Management............................   877
Christie, Thomas P., Nominee to be Director of Operational Test 
  and Evaluation, Department of Defense..........................   878

                             June 22, 2001

Nominations of Alberto J. Mora to be General Counsel of the Navy; 
  Diane K. Morales to be Deputy Under Secretary of Defense for 
  Logistics and Material Readiness; Steven J. Morello, Sr., to be 
  General Counsel of the Army; William A. Navas, Jr., to be 
  Assistant Secretary of the Navy for Manpower and Reserve 
  Affairs; and Michael W. Wynne to be Deputy Under Secretary of 
  Defense for Acquisition and Technology.........................   935

Statements of:

Morello, Steven J., Sr., Nominee to be General Counsel of the 
  Army...........................................................   941
Wynne, Michael W., Nominee to be Deputy Under Secretary of 
  Defense for Acquisition and Technology.........................   942
Morales, Diane K., Nominee to be Deputy Under Secretary of 
  Defense for Logistics and Material Readiness...................   942
Navas, William A., Jr., Nominee to be Assistant Secretary of the 
  Navy for Manpower and Reserve Affairs..........................   943
Mora, Alberto J., Nominee to be General Counsel of the Navy......   944

                             June 27, 2001

Nominations of Dionel M. Aviles to be Assistant Secretary of the 
  Navy, Financial Management and Comptroller; Reginald Jude Brown 
  to be Assistant Secretary of the Army, Manpower and Reserve 
  Affairs; Dr. Steven A. Cambone to be Deputy Under Secretary of 
  Defense for Policy; Michael Montelongo to be Assistant 
  Secretary for the Air Force, Financial Management and 
  Comptroller; and John J. Young, Jr., to be Assistant Secretary 
  of the Navy, Research, Development, and Acquisition............  1031

Statements of:

Inouye, Hon. Daniel, a U.S. Senator from the State of Hawaii.....  1034
Stevens, Hon. Ted, a U.S. Senator from the State of Alaska.......  1035
Reyes, Hon. Silvestre, a U.S. Representative from the State of 
  Texas..........................................................  1036
Montelongo, Michael, Nominee to be Assistant Secretary for the 
  Air Force, Financial Management and Comptroller................  1040
Brown, Reginald Jude, Nominee to be Assistant Secretary of the 
  Army, Manpower and Reserve Affairs.............................  1041
Cambone, Dr. Steven A., Nominee to be Deputy Under Secretary of 
  Defense for Policy.............................................  1041
Aviles, Dionel M., Nominee to be Assistant Secretary of the Navy, 
  Financial Management and Comptroller...........................  1042
Young, John J., Jr., Nominee to be Assistant Secretary of the 
  Navy, Research, Development, and Acquisition...................  1042

                             July 31, 2001

Nominations of John B. Stenbit to be Assistant Secretary of 
  Defense for Command, Control, Communication, and Intelligence; 
  Dr. Ronald M. Sega to be Director of Defense, Research and 
  Engineering; Michael L. Dominguez to be Assistant Secretary of 
  the Air Force for Manpower and Reserve Affairs; Paul Michael 
  Parker to be Assistant Secretary of the Army for Civil Works; 
  Dr. Mario P. Fiori to be Assistant Secretary of the Army for 
  Installations and Environment; H.T. Johnson to be Assistant 
  Secretary of the Navy for Installations and Environment; and 
  Nelson F. Gibbs to be Assistant Secretary of the Air Force for 
  Installations and Environment..................................  1139

Statements of:

Dominguez, Michael L., Nominee to be Assistant Secretary of the 
  Air Force for Manpower and Reserve Affairs.....................  1144
Stenbit, John B., Nominee to be Assistant Secretary of Defense 
  for Command, Control, Communication, and Intelligence..........  1145
Sega, Dr. Ronald M., Nominee to be Director of Defense Research 
  and Engineering................................................  1146
Lott, Hon. Trent, a U.S. Senator from the State of Mississippi...  1159
Cochran, Hon. Thad, a U.S. Senator from the State of Mississippi.  1161
Parker, Paul Michael, Nominee to be Assistant Secretary of the 
  Army for Civil Works...........................................  1165
Fiori, Dr. Mario P., Nominee to be Assistant Secretary of the 
  Army for Installations and Environment.........................  1166
Johnson, H.T., Nominee to be Assistant Secretary of the Navy for 
  Installations and Environment..................................  1167
Gibbs, Nelson F., Nominee to be Assistant Secretary of the Air 
  Force for Installations and Environment........................  1167

                             August 1, 2001

Nomination of Gen. John P. Jumper, USAF, for Reappointment to the 
  Grade of General and to be Chief of Staff United States Air 
  Force..........................................................  1309

Statement of:

Jumper, Gen. John P., USAF, Nominee to be Chief of Staff, United 
  States Air Force...............................................  1313

                           September 13, 2001

Nomination of Gen. Richard B. Myers, USAF, to be Chairman of the 
  Joint Chiefs of Staff..........................................  1377

Statement of:

Myers, Gen. Richard B., USAF, Nominee to be Chairman, Joint 
  Chiefs of Staff................................................  1383

                           September 25, 2001

Nominations of Gen. Peter Pace, USMC, for Reappointment in the 
  Grade of General and for Appointment as the Vice Chairman of 
  the Joint Chiefs of Staff; Gen. John W. Handy, USAF, for 
  Reappointment in the Grade of General and for Appointment as 
  Commander in Chief, United States Transportation Command and 
  Commander Air Mobility Command; and Adm. James O. Ellis, Jr., 
  USN, for Reappointment in the Grade of Admiral and for 
  Appointment as Commander in Chief, United States Strategic 
  Command........................................................  1445

Statements of:

Handy, Gen. John W., USAF, for Reappointment to the Grade of 
  General and for Appointment as Commander in Chief, United 
  States Transportation Command, and Commander, Air Mobility 
  Command........................................................  1451
Pace, Gen. Peter, USMC, for Reappointment to the Grade of General 
  and for Appointment as the Vice Chairman of the Joint Chiefs of 
  Staff..........................................................  1451
Ellis, Adm. James O., Jr., USN, for Reappointment to the Grade of 
  Admiral and for Appointment as Commander in Chief, United 
  States Strategic Command.......................................  1451

                            October 11, 2001

Nominations of Linton F. Brooks to be Deputy Administrator for 
  Defense Nuclear Nonproliferation, National Nuclear Security 
  Administration; Marvin R. Sambur to be Assistant Secretary of 
  the Air Force for Acquisition; William Winkenwerder, Jr., to be 
  Assistant Secretary of Defense for Health Affairs; Everet 
  Beckner to be Deputy Administrator for Defense Programs, 
  National Nuclear Security Administration; and Mary L. Walker to 
  be General Counsel of the Air Force............................  1529

Statements of:

Domenici, Hon. Pete V., a U.S. Senator from the State of New 
  Mexico.........................................................  1531
Beckner, Everet, Ph.D., Nominee to be Deputy Administrator for 
  Defense Programs, National Nuclear Security Administration.....  1535
Brooks, Ambassador Linton F., Nominee to be Deputy Administrator 
  for Defense Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................  1537
Winkenwerder, William, Jr., M.D., Nominee to be Assistant 
  Secretary of Defense for Health Affairs........................  1538
Sambur, Marvin R., Ph.D., Nominee to be Assistant Secretary of 
  the Air Force for Acquisition..................................  1539
Walker, Mary L., Nominee to be General Counsel of the Air Force..  1539

                            October 23, 2001

Nominations of Joseph E. Schmitz to be Inspector General, 
  Department of Defense; and Sandra L. Pack to be Assistant 
  Secretary of the Army for Financial Management and Comptroller.  1623

Statements of:

Schmitz, Joseph E., Nominee to be Inspector General, Department 
  of Defense.....................................................  1627
Pack, Sandra L., Nominee to be Assistant Secretary of the Army 
  for Financial Management and Comptroller.......................  1628

                            November 8, 2001

Nominations of R.L. Brownlee to be Under Secretary of the Army; 
  Dr. Dale Klein to be Assistant to the Secretary of Defense for 
  Nuclear and Chemical and Biological Defense Programs; and Peter 
  B. Teets to be Under Secretary of the Air Force................  1693

Statements of:

Hutchison, Hon. Kay Bailey, a U.S. Senator from the State of 
  Texas..........................................................  1700
Klein, Dr. Dale, Nominee to be Assistant to the Secretary of 
  Defense for Nuclear and Chemical and Biological Defense 
  Programs.......................................................  1706
Brownlee, R.L., Nominee to be Under Secretary of the Army........  1707
Teets, Peter B., Nominee to be Under Secretary of the Air Force..  1709

                            December 4, 2001

Nomination of Claude M. Bolton, Jr., to be Assistant Secretary of 
  the Army for Acquisition, Logistics, and Technology............  1789

Statement of:

Bolton, Maj. Gen. Claude M., Jr., USAF, Nominee to be Assistant 
  Secretary of the Army for Acquisition, Logistics, and 
  Technology.....................................................  1792

APPENDIX.........................................................  1863


    NOMINATION OF HON. DONALD H. RUMSFELD TO BE SECRETARY OF DEFENSE

                              ----------                              


                       THURSDAY, JANUARY 11, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Bingaman, Lieberman, Cleland, Reed, Warner, Thurmond, McCain, 
Inhofe, Roberts, Allard, and Sessions.
    Other Senators present: Senators Akaka, Bill Nelson, Ben 
Nelson, Carnahan, Dayton, Collins, and Bunning.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Richard D. DeBobes, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Gerald J. Leeling, 
counsel; Peter K. Levine, counsel; and Michael J. McCord, 
professional staff member.
    Minority staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Charles S. 
Abell, professional staff member; Charles W. Alsup, 
professional staff member; John R. Barnes, professional staff 
member; Edward H. Edens IV, professional staff member; William 
C. Greenwalt, professional staff member; Mary Alice A. Hayward, 
professional staff member; Lawrence J. Lanzillotta, 
professional staff member; George W. Lauffer, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Ann M. Mittermeyer, assistant counsel; Joseph T. Sixeas, 
professional staff member; Cord A. Sterling, professional staff 
member; Scott W. Stucky, general counsel; and Eric H. Thoemmes, 
professional staff member.
    Staff assistants present: Beth Ann Barozie, Thomas C. 
Moore, and Michele A. Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Erik Raven, assistant to Senator 
Byrd; David Klain, assistant to Senator Landrieu; Christopher 
J. Paul and Walter E. Fischer, assistants to Senator McCain; 
Gregory C. McCarthy, assistant to Senator Inhofe; George M. 
Bernier III, assistant to Senator Santorum; Thomas A. 
Vecchiolla, assistant to Senator Snowe; Robert Alan McCurry and 
James Beauchamp, assistants to Senator Roberts; Douglas 
Flanders, assistant to Senator Allard; Michael P. Ralsky, 
assistant to Senator Hutchinson; Scott Douglass, assistant to 
Senator Sessions.
    Other Senate staff present: Richard Kessler, assistant to 
Senator Akaka; Pete Contostavlos, assistant to Senator Bill 
Nelson; Sheila Murphy, assistant to Senator Ben Nelson; Larry 
Smar, assistant to Senator Carnahan; Christopher Ford and Sam 
Patten, assistants to Senator Collins; and Jeff Freeman, 
assistant to Senator Cochran.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. The history of this committee in the annals 
of the Senate reflect that we have achieved, through successive 
chairmen, a high degree of bipartisanship that our Nation is 
entitled from this committee. I have been privileged to serve 
23 years on this committee with my distinguished colleague. We 
came together 23 years ago. It has been my privilege to serve 
as the Chairman for the past 2 years. If the high water does 
not rise and flood us out, I will return to that position in a 
week or so.
    But in the meantime, in the spirit of bipartisanship, I am 
privileged to pass the gavel to Senator Levin. Senator Levin 
and I and Senator Inouye, Senator Stevens, and other members of 
the House went down to visit with President-elect Bush on 
Monday and we had a very good, thorough, and searching 
examination of defense issues and that struck the note of 
bipartisanship that is so essential as we, the collective 
members of our committee, represent this Nation in national 
security.
    So, Mr. Chairman, it is with privilege I pass the gavel to 
you.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Thank you, Senator Warner. I have been 
Chairman of this Committee for all of about a week. I cannot 
tell you how many people have noted to me just how you have 
thrived under my chairmanship already. [Laughter.]
    Before I proceed, I want to thank you for the many good 
years of friendship we have enjoyed over two decades now that 
we have been in the Senate. I will have some more comments 
about your chairmanship and that of Senator Thurmond and others 
in a moment. This is just a personal thank you to you.
    The committee meets today to consider the nomination of 
Donald Rumsfeld to serve as Secretary of Defense.
    As the first order of business, I want to welcome all of 
our Members back to the committee and extend a special welcome 
to our prospective new members. On our side, we are joined by 
Senator Akaka, Senator Bill Nelson, Senator Ben Nelson, Senator 
Carnahan, and Senator Dayton. On the Republican side, we are 
joined by Senators Collins and Bunning. This is a great 
committee to serve on. I know that Senator Warner and I and all 
the members of this committee look forward to our new members 
joining us.
    On behalf of the entire committee, I extend a warm welcome 
to Mr. Rumsfeld and his family. I understand that you are 
accompanied by your wife, Joyce Rumsfeld, your daughter Marcy 
Rumsfeld, and your granddaughter Kayley Rumsfeld. We know the 
sacrifices that your family will make while you are in this 
position and we want to thank them in advance for their support 
of you and the sacrifices which they will make.
    We also welcome Senators Durbin and Fitzgerald who have 
joined us today.
    Mr. Rumsfeld is well known to this committee from his 
recent service as Chairman of the Commission to Assess the 
Ballistic Missile Threat to the United States and his many 
other endeavors. A couple of the senior members of the 
committee may also admit to their age by remembering Mr. 
Rumsfeld's previous service as Secretary of Defense in the Ford 
administration. Don Rumsfeld was the youngest Secretary of 
Defense in our history. After a few years of service in the 
upcoming Bush administration, he will earn the distinction of 
being our oldest Secretary of Defense as well--at least until 
Senator Thurmond is sworn in as his successor sometime in the 
future. [Laughter.]
    We convene this hearing at a unique moment in the history 
of this country and in the history of the United States Senate. 
We have just concluded the closest presidential election in our 
history. For the first time ever at the beginning of Congress, 
the Senate is equally divided. A practical arrangement to 
accommodate that unusual situation was worked out by our 
leaders and approved by the Senate last week.
    Times like these call out for, and necessitate, 
bipartisanship and cooperation. Fortunately, this committee, as 
Senator Warner has said, has a long tradition of working in a 
bipartisan manner to address the national security challenges 
facing this country. Chairman Warner has consistently led the 
committee in this spirit, as have the chairmen before him. At 
times when the rest of Congress has suffered from gridlock, our 
committee's legislative achievements--like the Goldwater-
Nichols DOD Reorganization Act, and the Nunn-Lugar Cooperative 
Threat Reduction Program--have been marked by bipartisanship. 
Even our disagreements on issues have rarely been along 
partisan lines. For instance, while debates on the withdrawal 
of troops from Kosovo and on additional rounds of base closures 
have divided this committee in recent years, the division has 
not been on partisan lines.
    It is my hope that the ease with which we hand the 
chairman's gavel back and forth in the course of this month 
will symbolize the close working relationships on this 
committee over the decades and help set the tone elsewhere.
    Our new Secretary of Defense will inherit the most dominant 
military force in the history of the world. Over the last two 
decades, our military has incorporated a series of 
technological improvements that have revolutionized their 
military capability--from precision guided munitions and 
stealth technology to satellite reconnaissance and electronic 
warfare capabilities. The members of this committee, the 
Appropriations Committee, and our counterparts in the House of 
Representatives have played a key role in those changes. Today, 
each of our military services is more lethal, more 
maneuverable, more versatile and has greater situational 
awareness on the battlefield than at any time in history.
    During the 1990s, Congress and the administration worked 
together to enhance our national security by achieving a 
balance between the needs of today's troops, including their 
current readiness, with the need to develop and field weapons 
that will enable us to retain our technological advantage in 
the future. This effort led to the enactment of comprehensive 
improvements to the military's health care system, military pay 
and retirement systems, and the substantially increased 
acquisition spending to recapitalize and modernize the force.
    We have also been engaged in a constant struggle to 
maintain funding for operations and maintenance accounts that 
support current readiness, given the high rates of deployment.
    The terrorist attack on the U.S.S. Cole last fall 
demonstrated once again that our enemies are most likely to use 
indirect, asymmetric means to attack us. They realize it would 
be suicide to confront the United States military directly. The 
most likely threats to our national interest will come from 
regional conflicts due to ethnic, religious, or cultural 
conflicts and from terrorists and terrorist states.
    If states are involved, they will seek to hide their 
involvement, because the retaliatory power of the United States 
is so massive and survivable as to guarantee the destruction of 
the principal goal of a totalitarian regime--its own survival.
    In the area of national missile defense, the outgoing 
administration chose to aggressively pursue research and 
development, while stating a determination to consider in any 
deployment decision not only the threat, but the system's 
operational effectiveness and affordability, and the impact 
that deployment would have on our overall national security. 
This approach gives appropriate weight not only to the effect 
that large expenditures on missile defense would have on 
resources available to meet other vital defense needs, but also 
to the negative impact that the unilateral deployment of a 
national missile defense could have on our allies and on the 
proliferation of nuclear weapons, given the likelihood that the 
Russian and Chinese response to such unilateral deployment 
would be to increase (or stop reducing) the number of nuclear 
weapons and the amount of nuclear material on their soil. As 
Senator Baker and Lloyd Cutler found in their report released 
yesterday, the most urgent unmet national security threat to 
the United States is that weapons of mass destruction or 
weapons usable material located in Russia could be stolen and 
sold to terrorists or hostile nation states and used against 
American troops abroad or citizens at home.
    We need to analyze the extent to which we spend defense 
resources on threats that are the least likely to occur. A 
ballistic missile attack from a terrorist state against the 
United States is a threat, but it is one that we have 
successfully deterred and against which we have a continuing 
overwhelming deterrent. There are cheaper and easier means of 
attacking the United States than an ICBM--means such as truck 
bombs, poisoning of water systems, or infiltration of computer 
networks--which may not open the unknown attacker to massive 
destruction in return. Those are just a few of the issues that 
we will be grappling with as a committee and you will be 
grappling with as Secretary of Defense.
    We are blessed to live in a Nation whose political 
institutions and economy are respected throughout the world. 
With the end of the Cold War, our core values of freedom, 
democracy, and human rights appear to be stronger than ever 
with democratic revolutions changing the history of nation 
after nation. Our military, when used wisely, at once makes our 
Nation secure and enables us to play a unique role in 
influencing the course of events outside our borders in a 
peaceful and stable direction.
    But the ability to influence events does not necessarily 
mean, of course, the ability to control them. We live in such a 
complex world, where we must deal with many interests that are 
contrary to our own. We should be proud of all that we have 
achieved in the world, including the reversal of ethnic 
cleansing in Europe for the first time in history, which also 
enabled nearly a million refugees and displaced persons to 
return to their homes. At the same time, we must be prepared to 
deal with new threats--particularly the terrorist threat--with 
new technologies, more mobile forces, and improved intelligence 
capabilities. Chairman Warner, with my support, created a 
subcommittee that is specially aimed at addressing these new 
threats. In the most recent defense authorization bill that we 
have adopted, we have paid special attention to the need to 
address the new threats.
    The new administration will develop its own strategy for 
addressing these difficult issues and for maintaining the 
superiority of America's military force. Today's hearing 
provides an opportunity for all of us to begin the process of 
discussing that strategy. The nominee before us today has a 
strong commitment to the national defense. He is well-qualified 
to address the issues facing the Department of Defense and he 
is an extremely well-qualified nominee for this position. We 
congratulate him. We also congratulate the President-elect for 
this nomination. I now call upon Senator Warner for his opening 
statement.

            OPENING STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you very much, Chairman Levin. I join 
you in welcoming our new members. Our new members put this 
committee at the highest level membership in history at 24.
    In years past, we recruited members. Now we have certainly 
an indication of strength among our entire membership as 
reflected by so many wishing to join us. We welcome you.
    To you, my dear friend for over 30 years, we have had a 
friendship and a personal relationship and indeed a 
professional one, having served together in the Ford 
administration, I as Secretary of the Navy and you as one of 
our troublemakers over in the White House.
    I join in welcoming your lovely wife and family. Anyone 
taking on particularly your responsibilities as Secretary of 
Defense 24 hours a day, 7 days a week and that phone is always 
by your side. Indeed, your family fully shares the heavy 
responsibilities. You are so fortunate to have such a wonderful 
family to share that burden.
    If I may say, Mrs. Rumsfeld, you will be an integral part 
of reassuring the other families of the service persons 
throughout the world by your strong support of your husband and 
indeed them.
    So we welcome you as a team to the department. I look back 
over the hearing record of November 12, 1975. It was a very 
short hearing I note and perhaps not as well attended. But that 
reflects the importance of the Senate advice and consent today. 
This committee, as to other committees of the Senate, take that 
responsibility very seriously.
    So our hearing today will be lengthy and we will probe 
deeply into many areas of our security relationships and your 
responsibility and how you intend to fulfill it.
    First, I would like to say that based on my good fortune to 
have known you, I say without any reservation you are 
competent. You are experienced. You are trustworthy. You have 
the character, the honesty, to do this job second to none.
    I was so pleased, and indeed I think the country should be 
grateful that you are willing to come back again, sign on for a 
second hitch, as we say in the military, for this important 
post. I note behind you two old-timers who are not paying any 
attention to what we are saying, Mr. Schneider and Mr. 
Korologos. [Laughter.] I do not know why they are here, but we 
welcome them anyway. [Laughter.]
    We also commend you, Mr. Rumsfeld, for keeping active and 
informed on defense and security issues since your last 
Pentagon service. The committee is familiar with the excellent 
work you have done in both the Commission to Assess the 
Ballistic Missile Threat which issued its report in 1998 and 
the ongoing Commission to Assess United States National 
Security Space Management and Organization which coincidentally 
the report will be issued today.
    Now, Senator Levin and I and others have received a 
briefing on the work of this commission. It is a job well done. 
It is another serious wake-up call to America about the threats 
directed at us.
    Our committee played a central role in establishing both of 
these commissions and I commend its membership. We thank you 
again and the members of the committee for your work.
    We are familiar with the findings and recommendations of 
the Ballistic Missile Threat Commission and the influence that 
that report had. It came at a critical time I say to you. In 
many ways, the Ballistic Missile Threat Report changed the 
entire debate over national missile defense by convincing many 
in Congress, and, respectfully, in the Clinton administration, 
that the potential threat is more serious and more imminent 
than previously understood throughout our Nation.
    I look forward to your comments on this subject and my dear 
friend and colleague here I think quite appropriately in his 
opening statement indicated some of his strong views. We have 
not always agreed on it, but it is a subject that is the 
centerpiece of the new Bush administration. No one is better 
qualified than yourself to advise the President on the 
directions to be taken.
    We still have, as you well know, you are a former sailor, 
former naval aviator the best-trained, best-equipped military 
force in the world today. There are certainly many areas in 
which we need to continue to make improvements.
    We are not pleased at all with the retention levels, 
difficulty of recruiting. When we recruit today, we recruit 
families. We recruit unlike when you and I went in many years 
ago into the service. It is families today.
    When that critical decision is made about retention the 
wives are usually co-equal partners. It was a family decision 
to stay or to go out and seek the lucrative opportunities that 
these well-trained individuals have in the private sector.
    Readiness and modernization have been the highest priority 
of this committee. We have achieved some gains, but not enough.
    Procurement. We have almost dropped to levels which are 
just totally unacceptable. We have to modernize and restore the 
best we can within the budget a much higher level of acquiring 
new and modern weapons.
    Just look at the truck inventory in the United States Army. 
No civilian, no private sector, would operate a truck force 
like we are operating in the military. That is just one thing 
people can understand all across America.
    So therefore, Mr. Secretary, we have to increase defense 
spending. When we, Senator Levin and I, had an opportunity to 
visit with President-elect Bush, Vice President-elect Cheney, 
on Monday, we did not talk about specific levels. But there was 
the clear consensus that we have to increase substantially 
defense spending.
    Now, this morning we cannot establish those levels with any 
precision. But I was heartened to see that the President-elect 
wants to first task you to examine how the current budget, 
those of past years, being expended, to determine whether or 
not you should redirect funding, to determine whether there are 
efficiencies within which you can gain some cash needed for 
other programs.
    Then after doing that, you can establish that level of 
increase in the context of not only the other budget factors, 
but most importantly the President-elect said the defense 
budget has to have a direct relevance if not in fact be driven 
by the threats poised against this Nation, threats quite 
different than our generation of active service in the 
military. Quite different.
    Senator Levin expounded on terrorism and the work of this 
committee, and I commend this committee for its work. We have 
constantly had to push the current administration for higher 
levels of funding in a wide range of areas to combat terrorism 
and the risks here in the United States which I will address 
momentarily. We call it homeland defense.
    President-elect Bush used that very phrase in his statement 
at the Citadel which is a foundation document of his thinking.
    Now, historically, the Joint Chiefs of Staff have had, of 
course, a vital role in the planning in the Department of 
Defense. But I commend them, especially for the past 2 years, 
and indeed the years before under my distinguished predecessor, 
Senator Thurmond, for coming before this committee and 
testifying about the need for additional funds over and above 
the recommendations and the submissions by the Commander in 
Chief, the President of the United States at that very table.
    The past 2 years we have taken that testimony which has 
been essential as this committee has gone to the floor of the 
United States Senate to get higher authorization levels for 
spending. We have gotten what I regard as modest sums, but 
nevertheless very important increases in the past 2 fiscal 
years.
    You will be faced early on with first the supplemental. We 
have talked about that together. We talked with Senator Stevens 
and Senator Inouye about it. Followed by a budget amendment to 
the current Clinton administration budget which is 
traditionally submitted to Congress by the outgoing President. 
Those are some of the key things that you will have to address 
immediately. Within both, you will have additional sums needed 
desperately for our defense.
    President-elect Bush has articulated a vision for the U.S. 
military and have set three broad goals for national defense.
    First, to strengthen the bond of trust between the 
President which is so essential, from the four star officer 
down to the private or the seaman, that bond of trust between 
the commander and chief and those in uniform and indeed their 
families.
    Second, to defend the American people against missiles and 
terror. Very few in the United States recognize we are 
virtually defenseless against missile attack. That, of course, 
is the subject that my colleague discussed and we will have 
further discussions on that.
    Third, to begin creating the military of the next century. 
How well you know from your own study the old slogan they are 
always preparing to fight the last battle. Well, that worked 
maybe in World War II when we had the time to catch up because 
of the protection of the oceans. But those protections are gone 
today. Warfare is instantaneous. It is the arsenal we have of 
weapons and trained people in place that will be used.
    Cyber warfare. No one envisioned that a decade ago. But 
today it is a threat which I and others think is just as lethal 
as anything.
    I commend your predecessor, Secretary Cohen. He has 
recognized would you not say, Mr. Chairman, the oncoming and 
the changing threats in just the 4 years that he has been 
present as Secretary of Defense?
    I want to say at this time, and I think the members of this 
committee would want to reflect, our respect for the work that 
Secretary Cohen and his team have done in his administration. 
You understand these goals.
    I want to go back to the President's speech at the Citadel. 
He said, and I quote, ``Those who want to lead America accept 
two obligations. One is to use our military power wisely 
remembering the cost of the war. The other is to honor our 
commitments to veterans who have paid those costs.''
    People. Those who have served in the past, those who are 
serving today, and those we need to have come in and serve for 
tomorrow.
    I am proud of the way this committee, this last bill, began 
to reach back and take care of those veterans, particularly the 
career veterans, in terms of their medical needs. This 
committee is very conscious of the fact that they are the best 
recruiters in the world, those who have served once. We have in 
the past, I think, neglected them. That has come to an end with 
the work of this committee.
    The start point President-elect Bush has said that he will 
recommend a substantial pay raise, a billion. This committee 
has worked on two successive pay raises. We are ready to accept 
that challenge of that billion dollar mark. Perhaps it has to 
be adjusted maybe up or sideways or down a bit. But we will 
back him in working through that very important thing because 
that is key again to the retention and the care of the 
families.
    We all know that most of the retention decisions as I 
mentioned are made on a family basis. That is critical to care 
for those people.
    Homeland defense will be a high priority for President-
elect Bush and yourself, if confirmed. President-elect Bush has 
said that he will deploy both theater and national ABM systems 
to guard the United States, our allies, and troops deployed 
overseas against missile attack or the threat of attack. 
Defense against domestic terrorism, including detecting and 
responding to such threats, will also be a priority for the 
next administration. You will be at the very forefront.
    We also need an immediate and comprehensive review as 
President-elect Bush advised us when we visited with him of our 
military today, its structure, it strategy, its capabilities, 
and its modernization priorities.
    President-elect Bush has promised such a review. In my 
conversations with you, you are fully prepared to undertake 
that the first day you arrive in the department.
    We must look beyond the modest improvements we have had to 
our current systems and find ways to enhance and strengthen our 
military in many areas.
    I want to include among that base closure. It has been a 
very contentious subject. In past years, I was privileged to 
join with my friend, the Chairman, in originating those bills. 
Senator McCain has been very active on that front. I urge you 
to take a look at that at the earliest opportunity. There is 
infrastructure out there that can be withdrawn and I think 
constructively and in many instances will help local 
communities to get that infrastructure back and put it to good 
use. There will be a cost savings to the military which those 
dollars can be applied elsewhere. In most instances, it will 
eventually help the local communities. These are some of the 
initiatives that you must undertake.
    So I support this nomination very enthusiastically. It is 
my intention to cast that vote for you subject to the work of 
this committee and I wish to commend President-elect Bush for 
putting together an absolutely outstanding team on the areas of 
national defense, national security, and international affairs. 
Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner. Two of our 
friends and dear colleagues have joined us to introduce Mr. 
Rumsfeld. Senator Durbin, we will call on you first. Then we 
will call on Senator Fitzgerald.

STATEMENT OF HON. RICHARD J. DURBIN, U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you, Chairman Levin, and the members 
of the committee. It is an honor to introduce to the committee 
today my distinguished colleague from the land of Lincoln. I 
know that presidents have often complained about the Senate 
confirmation process. Herbert Hoover, upon the birth of his 
granddaughter, said, ``Thank God she doesn't have to be 
confirmed by the Senate.''
    Donald Rumsfeld has so much experience, I am sure he will 
have less trouble winning confirmation than President Hoover's 
granddaughter would have had if she had required the Senate's 
blessing.
    Don Rumsfeld's resume is impressive. Four-term Congressman 
from Illinois, Director of the Office of Economic Opportunity, 
U.S. Ambassador to NATO, White House Chief of Staff, the 
youngest ever Secretary of Defense, CEO of several major 
corporations, and a special envoy for President under President 
Reagan.
    We have heard a lot about bipartisanship lately. When Don 
Rumsfeld came by my office to talk about this hearing, he told 
me that when he served in Congress before Baker versus Clark 
that Speaker Sam Rayburn had a congressional district of about 
89,000. Is that what you remember, Don? His congressional 
district was the largest in the nation at 1.1 million.
    The Illinois district that Don Rumsfeld represented in the 
House of Representatives was split in two in Congress after he 
departed. One district represented by a conservative Republican 
and one by a liberal Democrat. His ability to serve such a 
diverse district speaks well of his ability to bridge a 
Congress and a country almost equally divided.
    While all Senators may not agree with Mr. Rumsfeld on every 
issue, he has certainly earned our respect. In fact, I want to 
warn my Senate colleagues to be reluctant to go to the mat with 
Don Rumsfeld. Not only was he Captain of Princeton University's 
wrestling team, and All Navy wrestling champion, he was also 
inducted in the National Wrestling Hall of Fame and Museum. He 
joined Speaker Hastert as another famous wrestler who hails 
from Illinois.
    I for one plan to keep in mind that wrestling depends on 
strategy and making the right move at the right time as much as 
it does on strength and power.
    Some of his critics have complained Mr. Rumsfeld's 
experience with defense is from a bygone, Cold War era. Those 
critics ignore the obvious. Mr. Rumsfeld's valuable 
contributions chairing several commissions, including the 
Ballistic Missile Threat Commission, and the obvious experience 
that he has had in managing major corporations in a new 
economy. Mr. Rumsfeld has kept up and I would challenge his 
critics to try to keep up with him.
    In 1775, in our revolutionary era, Patrick Henry said, ``I 
have but one lamp by which my feet are guided and that is the 
lamp of experience. I know of no way of judging the future but 
by the past.''
    It is only because the United States was so steadfast in 
fighting for freedom and democracy that the world enjoys an 
unprecedented era of freedom and prosperity today.
    Mr. Chairman, Mr. Rumsfeld carries the lamp of experience. 
I wish him for our country's sake every success as he travels 
by that light. It is with pride that I present to you one of 
Illinois' favorite and most distinguished sons.
    Chairman Levin. Senator Durbin, thank you.
    Senator Fitzgerald.

   STATEMENT OF HON. PETER G. FITZGERALD, U.S. SENATOR FROM 
                            ILLINOIS

    Senator Fitzgerald. Thank you very much, Mr. Chairman, and 
members of this distinguished committee. It is a great honor 
and privilege for me to join with my colleague, Senator Durbin, 
to present to this committee one of Illinois' most 
distinguished residents, Donald Rumsfeld.
    The day after President-elect Bush announced his selection 
of Donald Rumsfeld, I noted that in the New York Times the 
reporter had asked Henry Kissinger his opinion of the Defense 
Secretary designate. Dr. Kissinger said, and I quote, ``I 
literally cannot think of a better person for the post.''
    That was exactly my impression. I believe it was the 
impression of many of the members of this body and certainly of 
many of the newspaper editorial boards around the country.
    It is kind of an irony, Don. You were actually my 
Congressman when I was growing up. I was one of those 1.1 
million constituents Senator Durbin referred to.
    Now, lest this committee conclude that either I am too 
young to be in the United States Senate or that he is too old 
to serve as Defense Secretary, I would point out that he was a 
very young Member of Congress, one of the youngest Members of 
Congress at the time, in his early 30s. I would note that in 
one of life's unfair ironies, he has more hair than I do today. 
As Senator Durbin said, I would not recommend that anybody try 
to wrestle with Don Rumsfeld.
    Shortly after I got sworn in, I was very familiar with 
Donald Rumsfeld's record in business and in government. I knew 
of his impressive resume. But what I would urge you to reflect 
upon is, this man is not simply a resume who has held all these 
impressive posts. He is someone who has collected a lot of 
wisdom from his years of experience.
    Shortly after I was sworn in, he shared with me a little 
pamphlet that he put together and compiled over the years known 
as ``Rumsfeld's Rules''. If any of you have not seen that, I 
would recommend that you get a copy of it. It has many of his 
words of wisdom and advice to Members of Congress or those in 
the administration. I read that carefully after I got sworn in. 
I remember certain pearls and chestnuts that you had, such as, 
``no Member of Congress is here by accident, if you get to know 
your fellow colleagues in this body, you will see that there is 
some special reason each one of them is here. In getting to 
know that special reason, you will come to respect that member 
and you will also learn a lot about America.'' So I recommend 
``Rumsfeld's Rules'' to all of you. It has a great deal of 
wisdom in it.
    As Senator Durbin said, Mr. Rumsfeld is a graduate of 
Princeton University, and captain of the wrestling team, and I 
believe, captain of the football team. He went on to be a naval 
aviator, was the Navy wrestling champion, served four terms in 
Congress, became the White House Chief of Staff, then was named 
Defense Secretary. He was regarded as having a wonderful record 
and having been an outstanding Secretary of Defense the first 
time around. I can only imagine him being better this time 
around.
    Now, there is a lot of talk about investment opportunities 
these days with the market having gone up so much the last few 
years and then coming down. A good investment strategy over the 
last 20 years would have been to invest in companies that were 
chaired or the CEO was Donald Rumsfeld.
    G.D. Searle Company, a major Illinois pharmaceutical 
company, was in dire straits back in 1977 when Don Rumsfeld 
took over. By the time he left in 1985 and the company was 
sold, the stock had quadrupled.
    There was a similar success story with General Instrument 
Corporation. Many of you are familiar and are friends with Ted 
Forstman who runs a fund that invests in corporations. Ted 
Forstman, of course, is known for his philanthropy and his 
generosity in creating scholarships for young children all over 
the country. That philanthropy might not have been possible had 
his fund not bought General Instruments, put Donald Rumsfeld in 
charge who within 3 years had tripled the stock of that 
corporation. They took it public.
    He has continued on in advisory roles to this body and to 
the executive branch. He has stayed engaged in defense issues. 
This is a rare individual who has literally succeeded at almost 
everything he has done in life. I think I can only say, I can 
only conclude, as some of you have already concluded, that we 
are simply fortunate to have a person of this caliber who is 
willing to re-enter public service and to assist our country.
    Mr. Chairman, I would ask leave to introduce into the 
record prepared remarks that I have. I want to thank you all 
for your consideration. I recommend Donald Rumsfeld with whole 
hearted enthusiasm and confidence. Thank you.
    [The prepared statement of Senator Fitzgerald follows:]
           Prepared Statement by Senator Peter G. Fitzgerald
    Thank you, Mr. Chairman, and members of the committee.
    I am honored to be here today to introduce to you a man whom I have 
admired and respected throughout his distinguished career of public 
service. Introducing Don Rumsfeld to the Armed Services Committee is a 
little like introducing Sammy Sosa to the Chicago Cubs. Secretary 
Rumsfeld has hit home runs in literally everything he has done in his 
long and influential career.
    Don Rumsfeld was my congressman when I was growing up. I first met 
Don in 1988, when he ran for President, and my family has known him for 
nearly 40 years. I am proud to be before this committee today in 
support of this extraordinary individual.
    Don Rumsfeld attended Princeton University on a scholarship, and 
then was a Navy pilot and All Navy Wrestling Champion, before being 
elected four times to Congress from my home state of Illinois.
    Don was an energetic and effective congressman, a rising star, who 
quickly caught the eye of Gerald Ford, then a Representative from 
Michigan. In 1969, President Nixon appointed Don as Director of the 
Office of Economic Opportunity, and later as U.S. Ambassador to NATO.
    In 1974, President Ford selected Don to be his chief of staff, and 
Don's sound management and political instincts helped President Ford 
heal the wounds of Watergate and the Vietnam War. In 1975, President 
Ford appointed Don as Secretary of Defense, the youngest ever to serve 
in the position. Once again, Don displayed his extraordinary talents as 
a tough, skillful manager, strategist, and advocate. Don helped restore 
the confidence and credibility of our Armed Forces, warned of the 
growing Soviet threat, and built bipartisan support in Congress for 
strengthening and modernizing our military.
    Don then applied his extraordinary energy and talent to the private 
sector, restoring profitability to two large, Illinois-based blue chip 
corporations. G.D. Searle, a major worldwide pharmaceutical company, 
was foundering when Don took over, but made a dramatic recovery under 
his leadership. Don then returned GI Corporation, a pioneer in 
telecommunications, to profitability--GI's market value tripled under 
Don's leadership.
    Throughout Don's years in business, he continued to serve Illinois 
and the Nation, on numerous non-profit philanthropic boards, as an 
adviser to the State and Defense Departments, as President Reagan's 
Special Envoy to the Middle East, and as Chairman of the U.S. Ballistic 
Missile Threat Commission, among other things.
    The President's most important job is Commander in Chief. 
President-elect Bush has demonstrated in selecting Don Rumsfeld as his 
Secretary of Defense that he will ensure that our Nation can face the 
security challenges of the 21st century. These challenges require that 
we create and maintain a flexible military force that is able to adapt 
quickly to changing threats. I know Don is committed to ensuring that 
America's Armed Forces are modernized to meet the challenges of the new 
century. He understands that today's procurement is tomorrow's 
readiness. He knows that the men and women of the Armed Forces must 
remain the best trained and best equipped in the world.
    President-elect Bush has committed himself to building an effective 
missile defense system to protect our country from ballistic missile 
attack and nuclear intimidation. Don, as Chairman of the bipartisan 
Ballistic Missile Threat Commission, warned the Nation that the missile 
threat to the U.S. is real and growing, and that the United States will 
have little or no warning before a rogue state deploys ballistic 
missiles with the capability to inflict major destruction on the United 
States. As Don put it so well, the surprise is not that there are 
surprises, but that we are surprised that there are surprises.
    We in Congress, by passing the National Missile Defense Act of 
1999, made it the policy of the United States to deploy, as soon as is 
technologically possible, an effective National Missile Defense system. 
Don Rumsfeld is the right individual to make the hard choices and the 
tough calls that must be made to select and deploy an effective and 
affordable system that meets the threat.
    Finally, providing the resources for the defense of this country is 
one of the greatest responsibilities we have as U.S. Senators. While we 
often get deeply involved in the pros and cons of this or that fighter 
plane or battleship, we can never forget what the defense of this 
country really rests on: our men and women in uniform. Don Rumsfeld 
knows this to his very core.
    Don's 3 years of service in the U.S. Navy as a jet pilot and flight 
instructor, and his work as Secretary of Defense in the post-Vietnam 
years rebuilding the morale and pride of our military, are legendary. 
Don clearly understands the sacrifice that has been made by our service 
members. I am confident Don will help provide our military with the 
best equipment and training America has to offer and will ensure that 
every service member and his or her family has the quality of life they 
were promised. The recently released report on the U.S.S. Cole tragedy 
underscores the need to beef up security for our troops stationed 
abroad against the threat of terrorism.
    In short, I cannot imagine anyone more capable of serving as 
Secretary of Defense than Don Rumsfeld, and I commend President-elect 
Bush for his bold choice. I am grateful that Don has agreed to return 
to what is, without doubt, one of the toughest jobs in the world. We 
are fortunate to have someone of Don's caliber willing to take on this 
difficult responsibility once again. It is therefore a great privilege 
to join my colleague, Senator Durbin, in introducing Don Rumsfeld, and 
urge the committee to give prompt and favorable consideration to his 
nomination.
    Thank you, Mr. Chairman.

    Chairman Levin. It will be made part of the record. We 
thank both of you for coming. It makes a real difference to the 
nominee I am sure and to this committee. Mr. Rumsfeld, now you 
have to live up to all of that and investment advice while you 
are at it.

STATEMENT OF HON. DONALD RUMSFELD, SECRETARY OF DEFENSE NOMINEE

    Mr. Rumsfeld. Wow. Well, I must say I thank Senator 
Fitzgerald and Senator Durbin for those very generous words. I 
will try to live up to them.
    Mr. Chairman, Senator Warner, members of the committee: It 
is a privilege and an honor to appear before you today as the 
nominee for the post of Secretary of Defense. I am certainly 
grateful to President-elect George W. Bush for his confidence 
that he's placed in me. I thank the committee and you, Mr. 
Chairman, for your courtesy in arranging this hearing so 
promptly.
    I would like, with your permission, to make some remarks 
off my prepared statement and have the statement made a part of 
the record.
    Chairman Levin. It will be made part of the record in full.
    Mr. Rumsfeld. As has been said, it was 25 years ago that I 
had the privilege of appearing for the first time before this 
committee as President Ford's nominee for Secretary of Defense. 
Certainly, we lived in a very different world then. In the 
intervening quarter of a century, the world has changed in ways 
that we could really only have dreamed of.
    America was locked in a nuclear and ideological standoff 
with the Soviet Union. Today, the Soviet Union is no more. The 
world of superpower standoff has given way to a world of 
expanding freedom and, I would add, expanding opportunity.
    The last time I appeared here for a confirmation hearing, 
the Armed Forces and those of our NATO allies stood toe-to-toe 
facing the militaries of the Warsaw Pact--ready to clash at a 
moment's notice on a battlefield with Poland, Hungary, 
Czechoslovakia, and East Germany.
    Today, the Warsaw Pact is no more; Berlin is again the 
capital of a unified Germany; and Warsaw, Prague, and Budapest 
are the capitals of our new NATO allies. As one who served as 
U.S. Ambassador to NATO, I must say I find these changes 
breathtaking and fundamental.
    When I appeared previously, American industry was facing an 
industrial challenge from Japan. You will recall the 
productivity and competitiveness made American industry look 
fat in overhead, excessively layered in management, sluggish in 
confronting change and innovation.
    Today, U.S. industry has shaken off those handicaps and--in 
a process that I have had the privilege to witness first hand--
become a leader and a model for the rest of the world. The end 
of the Cold War and the collapse of Soviet military power have 
brought the twentieth century--possibly the most violent and 
destructive century in human history--to a remarkably peaceful 
close.
    U.S. and allied military power was the indispensable 
instrument that contained the Soviet Union, confronted Soviet 
power and its surrogates at the geographic extremities of its 
advance, and provided the shield within which democratic order 
and economic prosperity could evolve and develop.
    When the great struggle that was World War II had passed, 
this country found itself facing new challenges with the advent 
of the Cold War and the development of nuclear weapons. Today, 
with the Cold War Era history, we find ourselves facing a new 
era, often called the Post Cold War period or possibly more 
properly the Era of Globalization.
    It is an extraordinarily hopeful time, one that is full of 
promise, but also full of challenges. One of those challenges, 
one that, if confirmed, I look forward to working with 
President-elect Bush and this committee and Congress to meet, 
is the challenge of bringing the American military successfully 
into the 21st century, so that it can continue to play its 
truly vital role in preserving and extending peace as far into 
the future as possible.
    As President-elect Bush has said, ``After the hard but 
clear struggle against an evil empire,'' the challenge that we 
face today ``is not as obvious, but just as noble: To turn 
these years of influence into decades of peace.'' The 
``foundation of our peace'' is a ``strong, capable and modern 
military.'' Let there be no doubt.
    The end of the Cold War did not bring about an end to armed 
conflict, or the end to challenges and threats to U.S. 
interests. We know that. Indeed, the centrifugal forces in 
world politics have created a more diverse and less predictable 
set of potential adversaries whose aspirations for regional 
influence and whose willingness to use military force will 
produce challenges to important U.S. interests and to those of 
our friends and allies as Chairman Levin mentioned.
    President-elect Bush has outlined three overarching goals 
for bringing U.S. Armed Forces into the 21st century: First, we 
must strengthen the bond of trust with the American military. 
The brave and dedicated men and women who serve our country in 
uniform active, guard, and reserve--must get the best support 
their country can possibly provide them so that we can continue 
to call on the best people in the decades to come.
    Second, we must develop the capabilities to defend against 
missiles, terrorism, the newer threats against our space assets 
and information systems as members of the committee have 
mentioned. The American people, our forces abroad, and our 
friends and allies must be protected against the threats with 
modern technology and its proliferation confront us.
    Third, we must take advantage of the new possibilities that 
the ongoing technological revolution offers to create the 
military of the next century.
    Meeting these challenges will require a cooperative effort 
between Congress and the Executive Branch, and with industry 
and with our allies as well. If confirmed, I look forward to 
developing a close working relationship with this committee and 
with the counterpart committees in the House of Representatives 
to achieve these goals, and to fashion steps to help to 
transform our defense posture to address those new challenges.
    We must work together if we are to be able to address the 
problems of inadequate funding, which has been the case, 
unreliable funding, pertebations in funding and resistance to 
change. Change is hard and institutions are difficult to move. 
With cooperation and collaboration, we can make real progress. 
Without cooperation, we will surely fail.
    President-elect Bush is committed to a strong national 
defense. If confirmed, one of our first tasks will be to 
undertake a comprehensive review of U.S. defense policy that 
Senator Warner mentioned. This review will be aimed at making 
certain that we have a sound understanding of the state of U.S. 
forces and their readiness to meet the 21st century security 
environment.
    We need to ensure that we will be able to develop, deploy, 
operate, and support a highly effective force capable of 
deterring and defending against new threats. This will require 
a refashioning of deterrence and defense capabilities. The old 
deterrence of the Cold War era is imperfect for dissuading the 
threats of the new century and for maintaining stability in our 
new national security environment.
    If confirmed as Secretary, I plan to pursue five key 
objectives needed to support and make progress on the 
President's goal.
    First, we need to fashion and sustain deterrence 
appropriate to the new national security environment. The 
proliferation of weapons of mass destruction and their means of 
delivery are a fact of life that first must be acknowledged and 
recognized for what it is. They must be managed. While striving 
to slow proliferation remains essential, a determined state 
may, nonetheless, succeed in acquiring weapons of mass 
destruction and increasingly capable missiles.
    As a consequence, a decisive change in policy should be 
aimed at devaluing investment in weapons of mass destruction 
and their delivery systems by potential adversaries. Credible 
deterrence no longer can be based solely on the prospect of 
punishment through retaliation. It must be based on a 
combination of offensive nuclear and non-nuclear defensive 
capabilities, working together to deny potential adversaries 
the opportunity and the benefits that come from the threat and 
the use of weapons of mass destruction against our forces, our 
homeland, as well as those of our allies.
    Second, the readiness and sustainability of deployed forces 
must be deferred. The price of inadequate readiness is paid in 
necessary risks to American interests and in unnecessary risks 
to the lives of American service men and women.
    But inadequate readiness exacts a further price in the 
future quality of the force. Our Armed Forces today are all 
volunteers. Whether Active Duty, Reserve or National Guard, 
they are men and women who have willingly answered the call to 
serve our country and accepted the burdens and dangers that go 
with that service.
    As President-elect Bush has said, ``even the highest morale 
is eventually undermined by back-to-back deployments, poor pay, 
shortages of spare parts and equipment, and declining 
readiness. . . . A volunteer military really has only two paths 
it can travel. One is to lower standards to fill the ranks. Or 
it can inspire the best and brightest to join and stay.'' If 
confirmed, I look forward to working with the President and 
this committee that has been so interested in this subject to 
make sure that our country's service is able to attract and 
retain the best of our country.
    Third, U.S. command-control-communication, intelligence and 
space capabilities must be modernized to support our 21st 
century needs. A modern command, control, communications, and 
intelligence infrastructure is the foundation upon which U.S. 
military power is employed. The development and deployment of a 
truly modern effective command, control, communication, and 
intelligence system is fundamental to the transformation of 
U.S. military forces, and it is indispensable to our ability to 
conduct effective diplomacy.
    I am committed to strengthening our intelligence to serve 
both our short-term and our long-term national security needs. 
I will personally make establishing a strong spirit of 
cooperation between the Department of Defense and the rest of 
the intelligence community, under the leadership of the DCI, 
one of my top priorities. We simply must strengthen our 
intelligence capabilities and our space capabilities, along 
with the ability to protect those assets against various forms 
of attack.
    Fourth, the U.S. defense establishment must be transformed 
to address our new circumstances. The need to swiftly introduce 
new weapons systems is clear. The transformation of U.S. 
military power to take full advantage of commercially created 
information-technology may require undertaking a near-term 
investment to acquire modern capabilities derived from U.S. 
scientific and industrial pre-eminence, rather than simply 
upgrading some existing systems.
    The present weapons system acquisition process was designed 
in an environment different from the one that exists today. In 
my view, it is not well-suited to meet the demands posed by an 
expansion of unconventional and asymmetrical threats in an era 
of rapid technological advances and a period of pervasive 
proliferation.
    The cycle time from program start to initial operational 
capability for major acquisition programs conducted over the 
past several decades has, I am told, generally been between 8 
and 9 years. Some efforts obviously have taken far longer.
    But such processes are not capable of harnessing the 
remarkable genius and productivity of the modern, information-
based commercial and industrial sectors that have done so much 
to revolutionize our civilian economy.
    Fifth, reform of DOD structures, processes, and 
organization. The legacy of obsolescent institutional 
structures, processes, and organizations does not merely create 
unnecessary costs--which, of course, it does--it also imposes 
an unacceptable burden on the national defense. In certain 
respects, it could be said that we are in a sense disarming or 
under arming by our failure to reform the acquisition process 
and to shed unneeded organizations and facilities.
    If confirmed, we will examine, in consultation with 
Congress, omnibus approaches to changing the statutory and 
regulatory basis for the most significant obstacles to reform.
    This agenda for the new security environment is admittedly 
ambitious. It is an achievable one if the legislative and the 
executive branches work together.
    If confirmed, I will work closely with the committee and 
with the other appropriate committees of Congress to develop, 
fund, and implement an overall defense program that can achieve 
our goals for the future and for the future of our children.
    I again want to express my appreciation to the President-
elect for his confidence and to you, Mr. Chairman, and the 
members of the committee for inviting me here today. Thank you, 
sir.
    [The prepared statement of Mr. Rumsfeld follows:]
             Prepared Statement by Hon. Donald H. Rumsfeld
    Mr. Chairman, Senator Warner, members of the committee: It is a 
privilege and an honor to appear before you today as the nominee to be 
the next U.S. Secretary of Defense. I am grateful to President-elect 
George W. Bush for nominating me to this important post and for the 
confidence he has placed in me. I thank you and this Committee for your 
courtesy in scheduling this confirmation hearing.
    With your permission, I will make a few opening remarks and request 
that my prepared statement be included in the record.
    Some 25 years ago, I had the privilege of appearing for the first 
time before this Committee as President Gerald R. Ford's nominee for 
Secretary of Defense. We lived in a very different world then. In the 
intervening quarter century the world has changed in ways that we could 
once only dream of.
    The last time I appeared before you in this capacity, America was 
locked in a nuclear and ideological standoff with the Soviet Union. 
Today, the Soviet Union is no more, and the world of superpower 
standoff has given way to a world of expanding freedom and, I would 
add, expanding opportunity.
    The last time I appeared here for a confirmation hearing, U.S. 
Armed Forces and those of our NATO allies stood toe to toe facing the 
militaries of the Warsaw Pact--ready at a moment's notice to clash on 
the battlefield with Poland, Hungary, Czechoslovakia and East Germany. 
Today, the Warsaw Pact is no more; Berlin is again the capital of a 
unified Germany; and Warsaw, Prague, and Budapest are the capitals of 
our new NATO allies. As one who once served as U.S. Ambassador to NATO, 
I find these changes both breathtaking and fundamental.
    When I appeared previously, American industry was facing an 
industrial challenge from Japan, whose productivity and competitiveness 
made American industry look fat in overhead, excessively layered in 
management and sluggish in confronting change and innovation. Today, 
U.S. industry has shaken off those handicaps and--in a process that I 
have witnessed personally--has become a leader and a model for the rest 
of the world.
    The end of the Cold War and the collapse of Soviet military power 
have brought the 20th century--possibly the most violent and 
destructive century in human history--to a remarkably peaceful close. 
U.S. military power was the indispensable instrument that contained the 
Soviet Union, confronted Soviet power and its surrogates at the 
geographic extremities of its advance, and provided the shield within 
which democratic order and economic prosperity were able to develop. As 
part of this process, the peoples of Russia and other states of the 
former Soviet Union have, or are in the process of, throwing off 
communism and reaching for democratic order and market economy. The 
United States has emerged from the 20th century in a strong position in 
every measure of national strength--military, economic, scientific, 
industrial, diplomatic, political and, I believe, even spiritual. Even 
more important, the U.S. and our democratic allies in Europe, Asia and 
elsewhere enjoy a special position in the world that, if we can work 
together, offers the possibility to make the new century one of the 
most peaceful in history.
    When the great struggle that was World War II had passed, this 
country found itself facing new challenges with the advent of the Cold 
War and the development of nuclear weapons. Today, with the Cold War 
Era history, we find ourselves facing a new era, one that is often 
called the Post Cold War Era or the Era of Globalization. It is an 
extraordinarily hopeful time, one that is full of promise, but also 
full of challenges. One of those challenges, one that, if confirmed, I 
look forward to working with President-elect Bush and Congress to meet, 
is the challenge of bringing the American military successfully into 
the 21st century, so that it can continue to play its vital role in 
preserving and extending the peace as far into the future as possible.
    As President-elect Bush has said, ``After the hard but clear 
struggle against an evil empire,'' the challenge that we face today 
``is not as obvious, but just as noble: To turn these years of 
influence into decades of peace.'' The ``foundation of our peace'' is a 
``strong, capable and modern military.''
    The end of the Cold War did not bring about an end to armed 
conflict, or an end of challenges and threats to U.S. interests. 
Indeed, centrifugal forces in world politics have created a more 
diverse and less predictable set of potential adversaries whose 
aspirations for regional influence and whose willingness to use 
military force may well produce challenges to important U.S. interests 
and those of our friends and allies.
    President-elect Bush has outlined three overarching goals for 
bringing U.S. Armed Forces into the 21st century:
    First, we must strengthen the bond of trust with the American 
military. The brave and dedicated men and women who serve our country 
in uniform-active, guard and Reserve--must get the best support their 
country can possibly provide them, so that our country can continue to 
call on our best people to serve in the decades to come;
    Second, we must develop the capabilities to defend against 
missiles, terrorism, and newer threats against our space assets and 
information systems. The American people, our forces abroad, and our 
friends and allies must be protected against the threats with which 
modern technology and its proliferation confront us; and
    Third, we must take advantage of the new possibilities that the 
ongoing technological revolution offers to create the military of the 
next century.
    Meeting these challenges will require a cooperative effort between 
Congress and the Executive Branch, and with industry and with our 
allies as well. If confirmed, I look forward to developing a close 
working relationship with this Committee and your counter-parts in the 
House to achieve these goals, and to fashion steps to transform our 
national defense posture from its current form to one that will address 
the challenges of 21st century security. Bonds of trust need to exist 
not only between the President and the Armed Forces, but between the 
Department of Defense and Congress as well. We must work together if we 
are going to be able to address the real problems of inadequate 
funding, unreliable funding and resistance to change. Without 
cooperation and collaboration we will fail.
    President-elect Bush is committed to a strong national defense. 
Therefore, if confirmed, one of our first tasks will be to undertake a 
comprehensive review of U.S. defense policy. This review will be aimed 
at making certain that we have a sound understanding of the state of 
U.S. forces and their readiness to meet the requirements of the 21st 
century security environment.
    We must ensure that we will be able to develop, deploy, operate and 
support a highly effective force capable of deterring and defending 
against new threats, so that our country can contribute to peace and 
stability in the world. This will require a refashioning of deterrence 
and defense capabilities. The old deterrence of the Cold War era is 
imperfect for dissuading the threats of the 21st century and for 
maintaining stability our new security environment.
                           primary objectives
    Mr. Chairman and members of the committee, the explosive advance of 
modern technology, and the forces of globalization that are making the 
technology available to ally and adversary alike, make the 
transformation of U.S. military power essential. While much of the 
existing defense establishment can be adapted to 21st century needs, a 
good deal cannot. We must move forcefully to rationalize the costly 
burden of force structures and practices that do not contribute to 
current and future U.S. security needs.
    If confirmed as Secretary, I plan to pursue five key objectives and 
implement policies and allocate resources needed to achieve those 
objectives.
    First, we need to fashion and sustain deterrence appropriate to the 
contemporary security environment--a new national security environment.
    The proliferation of weapons of mass destruction and their means of 
delivery are increasingly a fact of life that first must be 
acknowledged and then managed. While striving to prevent further 
proliferation remains essential, a determined state may, nonetheless, 
succeed in acquiring weapons of mass destruction and increasingly 
capable missiles. As a consequence, a decisive change in policy should 
be aimed at devaluing investment in weapons of mass destruction and 
their delivery systems by potential adversaries.
    In a world of smaller, but in some respects more deadly threats, 
the ability to defend ourselves and our friends against attacks by 
missiles and other terror weapons can strengthen deterrence and provide 
an important compliment purely to retaliatory capabilities. Moreover, 
the ability to protect our forces is essential to preserving our 
freedom to act in a crisis. To this end, effective missile defense--not 
only homeland defense, but also the ability to defend U.S. forces 
abroad and our allies and friends, must be achieved in the most cost-
effective manner that modern technology offers.
    Nuclear deterrence remains an essential element of our defense 
policy. The credibility, safety, reliability, and effectiveness of the 
Nation's nuclear deterrent must remain unquestioned. But it must be 
adapted to 21st century deterrence needs. Credible deterrence no longer 
can be based solely on the prospect of punishment through massive 
retaliation. Instead, it must be based on a combination of offensive 
nuclear and non-nuclear defensive capabilities working together to deny 
potential adversaries the opportunity and benefits from the threat or 
use of weapons of mass destruction against our forces and homeland, as 
well as those of our allies.
    Second, the readiness and sustainability of deployed forces must be 
assured.
    When U.S. forces are called upon, they must be ready to cope with 
any contingency they may face, and be able to sustain military 
operations over an extended period of time if necessary. The pace of 
modern military operations in the Kosovo campaign revealed the kinds of 
demands placed on the readiness and sustainability of U.S. forces.
    The price of inadequate readiness is paid in unnecessary risk to 
American interests and lives of American service men and women. But 
inadequate readiness exacts a further price in the future quality of 
the force. Our armed forces today are all volunteers. Whether Active 
Duty, Reserve, or National Guard, they are men and women who have 
willingly answered the call to serve our country and accepted the 
burdens and dangers that go with that service. But, as President-elect 
Bush has said, ``even the highest morale is eventually undermined by 
back-to-back deployments, poor pay, shortages of spare parts and 
equipment, and declining readiness. . . . A volunteer military has only 
two paths. It can lower its standards to fill its ranks. Or it can 
inspire the best and brightest to join and stay.'' If confirmed, I look 
forward to working with the President and Congress to make sure that 
our country's service continues to attract and keep our very best.
    Third, U.S. command, control, communication, intelligence, and 
space capabilities must be modernized to support 21st century needs.
    In his speech at the Citadel, President-elect Bush talked about how 
the threats to our security are changing: ``We see the contagious 
spread of missile technology and weapons of mass destruction. All the 
unconventional and invisible threats of new technologies and old 
hatreds.''
    As the threats we face change, our defense capabilities must adapt 
and change with them. A modern command-control-communication and 
intelligence infrastructure is the foundation upon which U.S. military 
power is employed. The development and deployment of a truly modern and 
effective command-control-communication and intelligence system is 
fundamental to the transformation of U.S. military forces, and 
indispensable to our ability to conduct effective diplomacy.
    I am committed to strengthening our intelligence to serve both our 
short-term and long-term national security needs. I will make 
establishing a strong spirit of cooperation between the Department of 
Defense and the rest of the intelligence community, under the 
leadership of the Director of Central Intelligence, one of my top 
priorities. We must strengthen our intelligence capabilities and our 
space capabilities, along with the ability to protect those 
capabilities against various forms of attack.
    Fourth, the U.S. defense establishment must be transformed to 
address 21st century circumstances.
    The DOD has been unable to procure advanced weapon systems that can 
lower the cost and increase the performance of the Armed Forces. The 
need to swiftly introduce new weapons systems is paramount. The 
transformation of U.S. military power to take full advantage of 
commercially created information-technology may require undertaking a 
near-term investment to acquire modern capabilities derived from U.S. 
scientific and industrial pre-eminence, rather than simply upgrading 
existing systems.
    The present weapons system acquisition process was designed for a 
different environment than the one that exists today. It is ill suited 
to meet the demands posed by an expansion of unconventional and 
asymmetrical threats in an era of rapid technological advances and 
pervasive proliferation. The cycle time (from program start to initial 
operational capability) for major acquisition programs conducted over 
the past several decades has averaged between 8 and 9 years. Some 
efforts take far longer. Such processes are not responsive to urgent 
new challenges that involve considerable uncertainties. They are not 
capable of harnessing the remarkable genius and productivity of the 
modern, information-based commercial and industrial sectors that have 
done so much to revolutionize the U.S. civilian economy.
    In the 1960s and 1970s, the time from initial concept to actual 
deployment was significantly shorter than it is today. In short, the 
pace of development has become slower while the pace of technological 
change has become far more rapid. These two opposite trends conspire to 
create a situation where it is difficult for the acquisition process to 
produce anything other than capabilities that are already a generation 
behind when deployed. This problem must be addressed.
    Simply tinkering with the present acquisition system will not 
provide the innovation and speed necessary to satisfy future military 
needs and take advantage of powerful new technologies. If confirmed, I 
will work with this committee to develop a new acquisition strategy--
one designed to take advantage of modern U.S. industrial practices--
that will enable us to develop and field weapon systems at a speed that 
reflects the needs and possibilities of the new century.
    Fifth, reform of DOD structures, processes and organization.
    The legacy of obsolescent institutional structures, processes and 
organizations does not merely create unnecessary costs, it imposes an 
unacceptable burden on the National defense. In certain respects, it 
could be said that we, in a sense, are disarming ourselves by our 
failure to reform the acquisition processes and to shed unneeded 
organizations and facilities. If confirmed I will examine, in 
consultation with Congress, omnibus approaches to changing the 
statutory and regulatory basis for the most significant obstacles to 
reform.
    This agenda for the new security environment is admittedly an 
extraordinarily ambitious one. It is an achievable one if the 
Legislative and Executive branches of our government strengthen the 
bond of trust, and work together in a determined and collaborative 
fashion. If confirmed, I will work closely with this committee and the 
other appropriate Committees of Congress to develop, fund, and 
implement an overall defense program that can achieve our goals for the 
future and for the future of our children and grandchildren.
    Again, I want to express my appreciation to the President-elect for 
his confidence and trust. I thank you Mr. Chairman and members of the 
committee.

    Chairman Levin. Thank you, Mr. Rumsfeld. In accordance with 
the practice of the committee, without objection, your 
responses to our pre-hearing policy questions and your response 
to the committee questionnaire will be made part of the record 
of this hearing.
    We have not yet received all of the paperwork on Mr. 
Rumsfeld's nomination. That paperwork, which may be lengthy, 
will be reviewed by the committee and it could require 
additional discussion between the committee and the nominee.
    Before we begin our first round of questions, there are 
several standard questions which we ask every nominee who comes 
before the committee. In your response to advance policy 
questions, you agreed, Mr. Rumsfeld, to appear as a witness 
before congressional committees when called and to ensure that 
briefings, testimony and other communications are provided to 
Congress.
    Have you adhered to applicable laws and regulations 
governing conflict of interest?
    Mr. Rumsfeld. I do not know. First of all, the laws and 
regulations and rules are different for the various entities to 
which I have submitted this massive amount of information: the 
Pentagon, the Office of Government Ethics, the committee. I do 
not know that they all agree among themselves, but they are 
reviewing it. I think probably one of the reasons for the delay 
in getting the stack of hundreds of pages of materials to you 
is because it is still down in the Office of Government Ethics.
    I have a large number of investments and activities that 
would have to be characterized as conflicts were they to be 
maintained during my service as Secretary of Defense. I have, 
however, indicated in my response to you, Mr. Chairman, and to 
the other organizations, that I am ready and able--I believe 
able, but certainly ready--to take whatever steps are 
appropriate to eliminate anything that anyone of the various 
entities might feel would be inappropriate, both with respect 
to investments and with respect to relationships and boards and 
associations and that type of thing.
    Chairman Levin. Then to rephrase the tense of the verb, 
will you adhere to applicable laws and regulations governing 
conflict of interest?
    Mr. Rumsfeld. Yes, sir. Of that you can be certain.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Rumsfeld. No, I have not. I have talked to two people 
about--on a contingency basis that in the event that I am 
confirmed, they are individuals I would like to have join me in 
the department. But it has been purely on a contingency basis. 
I might just say that because the outcome of the election was 
delayed so long, the process is delayed. I hope that when we do 
get to the point of my recommending to the President-elect 
names to join me in the Pentagon, that the committee will move 
as promptly as possible with consideration of those people. 
Because when I think of the massive review you have 
characterized in your opening remarks that is facing me at the 
Pentagon, it is not something I would look forward to doing 
alone. I will need all the help I can get.
    Chairman Levin. I am sure that our next Chairman will have 
the support of this full committee in trying to expedite the 
nominees for those positions.
    Mr. Rumsfeld. Thank you, sir.
    Chairman Levin. Will you ensure that the Department 
complies with deadlines established for requested 
communications, including prepared testimony and questions for 
the record and hearings?
    Mr. Rumsfeld. I will certainly try to. I have been told 
that the number of requests for studies and responses to 
questions from various elements of the committees of interest 
to the Executive Branch to the Department of Defense is 
enormous. I would have to look at it and see how we can manage 
that process in a way that is satisfactory to both Congress and 
to the Executive Branch. But I certainly would make every 
effort in the world to do so.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Rumsfeld. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Mr. Rumsfeld. Well, if it is honest, certainly. If some 
witness came before a committee and said something that was 
inaccurate, I certainly would want to visit with them.
    Chairman Levin. I think we would, too.
    Mr. Rumsfeld. I do too.
    Chairman Levin. I think we would too. But other than that 
qualification, you will take steps to make sure that there is 
no reprisal against witnesses who intend to honestly present 
testimony and their opinions.
    Mr. Rumsfeld. Yes, sir. I would certainly want to see that 
witnesses were honest and forthright with the committees of 
Congress.
    Chairman Levin. Now, we are going to proceed to a first 
round of questions which, because of the number of Members who 
are here, we are going to limit to 8 minutes for each Senator. 
First, we will do that on an alternating basis between the two 
sides. Then following the early bird rule, we will recognize 
current Members of the committee first, followed by our newly 
designated Members. That's a bit of an awkward way to go at 
this, but I hope that our designated Members who are not yet 
formally Members of the committee will understand that. If 
there is a difficulty with that, we can try to adjust among us 
to accommodate schedules. But I did not know any other way to 
proceed until our new Members are actually Members of the 
committee which will not occur apparently until next week. The 
second round and any subsequent rounds will be limited to 6 
minutes for each Senator. It is my intent to recess the 
committee for lunch at about 1 o'clock and to resume the 
hearing at 2 o'clock. If necessary, we will schedule additional 
hearings.
    First, relative to missile defense, Mr. Rumsfeld, press 
reports have occasionally suggested that the Ballistic Threat 
Commission, which you chaired, advocated the deployment of a 
national missile defense system.
    Am I correct in stating that the mandate of the Commission 
was limited to examining the ballistic missile threat to the 
United States and that you and your commission did not take any 
position whether we should deploy a national missile defense 
system?
    Mr. Rumsfeld. That is correct.
    Chairman Levin. It has also been suggested that the 
incoming administration has already made decisions about the 
architecture of a national missile defense system should it 
seek to deploy such a system. It has been stated by, I believe, 
one of our colleagues that a decision presumably has been made 
already, a phased layered plan and a reconfigured plan for the 
ground-based program including land, sea, and space components.
    Do you know whether or not the incoming administration has 
made any decisions relative to the architecture of a national 
missile defense system, if in fact a decision is made to 
recommend such a system?
    Mr. Rumsfeld. Well, we know that the President-elect--and I 
suppose in terms of trying to characterize an administration 
that does not exist yet and where there are prospective 
participants who have really not had opportunities to meet and 
discuss these things, the President-elect has indicated that it 
is his intention to deploy a missile defense system. I know of 
no decisions that have been made by him or by me with respect 
to exactly what form that might take.
    Chairman Levin. The National Missile Defense Act, which was 
adopted by Congress and signed by the President, contains two 
equal statements of U.S. policy. The first statement is that it 
is the policy of the United States to deploy as soon as 
technologically possible an effective national missile defense 
system to defend against limited ballistic missile attacks. The 
second statement is that it is the policy of the United States 
to seek continued negotiated reductions in Russian nuclear 
weapons.
    Do you believe that we should consider the possible 
negative impact that the deployment of a national missile 
defense system could have on our policy to seek continued 
negotiated reductions in Russian nuclear weapons as indicated 
by that statute?
    Mr. Rumsfeld. Well, you were kind enough to give me a copy 
of that statute. I have read it. It seems perfectly reasonable 
to me. The only thing I might have added to it, had I been a 
Member of Congress, I might not have included the word 
negotiated in the second phrase where it says seek continued 
negotiated reductions in Russian nuclear forces.
    It seems to me you may or may not do it on a negotiated 
basis. There had been instances in relationships with countries 
where they had each taken actions that were not a result of a 
final negotiated agreement but rather were understood and were 
agreed to be in both parties' interests. But I find nothing in 
here that is surprising or unusual or with which I would 
disagree.
    Chairman Levin. You believe that both of those goals are 
legitimate goals with that qualification?
    Mr. Rumsfeld. There is no question but that I think that we 
should deploy a missile defense system when it is 
technologically possible and effective. I think that you 
obviously would want to be in discussions with Russia about the 
sizes and shapes of their capabilities and ours.
    Chairman Levin. Do you believe that it is a legitimate 
policy and an important policy to seek reductions in those 
nuclear weapons on Russian soil, as indicated by that statute? 
Do you agree with that as a goal?
    Mr. Rumsfeld. I do. I think that to the extent we can 
manage those capabilities down--I must say I think that the 
Russian stockpile or capabilities are going to go down anyway. 
Simply because of the circumstance of their economy. But I have 
no problem in talking with them about that. Although it is 
principally the responsibility of the Department of State.
    Chairman Levin. Is it in our interest that there be fewer 
nuclear weapons on Russian soil rather than more nuclear 
weapons on Russian soil?
    Mr. Rumsfeld. Sure.
    Chairman Levin. Is that something which would be in 
America's interest and the world's interest?
    Mr. Rumsfeld. Yes, indeed.
    Chairman Levin. On the Comprehensive Test Ban Treaty, we 
have recently received a letter from former Secretary of 
Defense Laird, who now joins General Shalikashvili, in 
believing that there should be reconsideration of the 
Comprehensive Test Ban Treaty with certain safeguards relative 
to verification. Given your previous position as having doubts 
about the question of verification, I am wondering whether you 
would be willing to take a look at the position of our Joint 
Chiefs which favors the Comprehensive Test Ban Treaty and 
believes that it is verifiable? Would you be willing to take a 
look at the recommendations of General Shalikashvili, and 
Secretary Laird, relative to that treaty?
    Mr. Rumsfeld. Former Secretary of Defense Mel Laird was 
kind enough to send me the material that he communicated with 
General Shalikashvili about. I have not had a chance to study 
it. But my concern on the Comprehensive Test Ban Treaty--and I 
forget when it was before the Senate, but as I recall, I 
testified on the subject.
    My concerns were two-fold really. One was the number of 
issues that were raised by people whose judgment I respect in 
the scientific community about the risks to the reliability and 
safety of the stockpile. I think that is something that is 
terribly important. We simply must have confidence in the 
safety and reliability of our weapons.
    The second was the difficulty of verification. I am aware 
in the press of what General Shalikashvili has come forward 
with. Certainly, I would want to look at it and think about it 
as any reasonable person would.
    Chairman Levin. Thank you. Earlier this month, the Chicago 
Tribune reported on a taped conversation that you apparently 
had with President Nixon when you were serving as counselor to 
the President in 1971. On the tape, there are a number of 
statements which I would appreciate your commenting on. I think 
it is important that you do comment on them.
    First, there were some offensive racist comments by the 
President. I would like you to explain your recollection of 
that conversation and your response to his comments.
    Second, the Chicago Tribune reports that in the 
conversation you make the statement that the Republicans got us 
out of Democratic wars four times in this century, referring to 
the first World War, the second World War, the Korean War, and 
the Vietnam War. I am wondering whether you believed it at the 
time that those wars were Democratic wars? If not, why would 
you have made that statement? What are your thoughts about 
that?
    Mr. Rumsfeld. Well, I was--the Bush transition office was 
contacted by the reporter who had been listening to the tape. 
He provided the office with some notes. I would not call them a 
transcript. Because in many cases they did not even purport to 
be a transcript of the tape. There was lots of places where it 
was dot, dot, dot. They then somehow--the transition office got 
ahold of the tape. I was able to listen to a few seconds of it. 
I do not know how long, but not much. I could not understand 
much of it. It is very difficult to understand.
    The truth is I did not remember the meeting or the 
conversation at all when it was raised. It was 30 years ago, 29 
years ago.
    Apparently, from what can be reconstructed, I was in an 
office somewhere in the White House complex with President 
Nixon as a--I guess I was an aide or a counselor or an 
assistant to him at the time. Apparently--and again, I am not 
certain of all of this--it appears that he was characterizing 
some remarks that were made by Vice President Agnew. He was 
characterizing--he was quoting them in a critical manner saying 
that Agnew should not have said that. He should not have been 
drinking with people who he did not know or whatever it was.
    Then later he quoted some other people and how they talked 
and he adopted a dialect according to this tape. The tape seems 
to indicate that I may have agreed with one or more things on 
that tape. To the extent I did agree with anything, I am 
certain I agreed only with the fact that some people talk like 
that and that Vice President Agnew should not have used or 
thought such derogatory and offensive and unfair and 
insensitive things about minorities.
    I did not then and I do not now agree with the offensive 
and wrong characterizations. I think it is unfortunate that it 
comes up because it is not fair and it can cause pain to people 
to read that type of thing.
    It is ironic that that newspaper, the Chicago Tribune, 
opposed the civil rights legislation during the 1960s when I 
was supporting it. That was the most powerful paper in my 
congressional district and I supported every single piece of 
civil rights legislation. I was Chairman of Tuskeegee 
Institute's 100th anniversary fundraising when Chappy James 
died and have an honorary degree from Tuskeegee Institute.
    On the Democratic war quote, I would say this. That was a 
time when the Vietnam War was raging. President Nixon was 
embattled and he was trying to end it. There were buses around 
the White House if you think back to that period. It is not--
when you think of the Hoover Depression or the Clinton economy 
today, there are shorthand ways of talking in private. It is 
a--a war is our country's war. It is not a Democratic war. It 
is not a Republican war. It is not a president's war. It is our 
Nation's war. I understand that. To the extent shorthand was 
used, it should not have been.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. That is an 
important inquiry that the Chairman has brought up and I feel I 
should add some personal recollections. I was Secretary of the 
Navy at that very time under Nixon. I recall being in a similar 
position from time-to-time in his presence when--although I 
regard him as a great President on national security and 
foreign affairs, he did have his shortcomings. I have looked 
into that transcript very carefully with our nominee here this 
morning and I am personally satisfied that he conducted himself 
in a manner that reflects no discredit on him today.
    Second, I must say, Mr. Chairman, the morning after that 
article appeared, Senator Moynihan called me. Senator Moynihan 
also was a member of our team in those days and very much 
involved. He said that if this is a matter that requires 
explanation, he would be happy to appear before this committee 
as a witness and testify to the unqualified credentials of this 
distinguished nominee, particularly in the area of civil 
rights. So I thank you for your forthright responses on that 
issue.
    Let us turn to the critical question of defense spending. I 
am going to ask you three or four questions on it. We are not 
here today to establish a number, even a benchmark.
    I think the important thing is to receive from you your 
unqualified support to increase defense spending. The 
procedures by which you will in the first 90 days undertake to 
ascertain first the efficiencies that can be generated within 
the existing budgets and second the procedures by which the 
President, yourself, and other advisors will determine how to 
increase it and by what amount.
    Second, reiterate what the President has already said, to 
me and others, that, yes, other budget considerations, very 
important, will take into consideration, but threat, the 
threats facing the United States and the need for this 
modernization will be the controlling factor in reaching the 
determinations on increased funding. Can you elaborate on that, 
sir?
    Mr. Rumsfeld. Yes, sir. I was asked by the President to 
consider becoming his nominee for this post I guess 8 or 10 
days ago. I have spent most of my time visiting with members of 
this committee and preparing for this hearing. I have not taken 
the series of briefings at the Pentagon. Nor have I had an 
opportunity to wrap my head around the budget numbers. I have 
read a great deal about it. I mean, the CBO was using one 
number. I think it was something like $40 or $50 billion add 
on. I read an article by Jim Schlesinger and Harold Brown who 
came up with a number that was somewhat higher than that, $60 
or $75 billion as I recall. I read a report from the CSIS, 
Georgetown Center, that was something in the neighborhood of 
$100 billion or $100 billion plus.
    Senator Warner. I heard you include the very conscientious 
evaluations of the Joint Chiefs.
    Mr. Rumsfeld. Yes, yes. What the number is, I don't know. 
Is it clear that there needs to be an increase in the budget? 
There is no doubt in my mind. But I am not well enough along in 
my thinking on it. Nor have I had an opportunity to even begin 
to be briefed by Bill Cohen. Although he has told me they are--
he feels the same way. I have not had a chance to talk to the 
transition people who are thinking through the budget numbers 
and how whatever it is----
    Senator Warner. But your commitment today is to work toward 
a significant increase.
    Mr. Rumsfeld. Yes, sir.
    Senator Warner. That is what I wanted to know.
    Mr. Rumsfeld. Absolutely.
    Senator Warner. That threat will be a consideration.
    Mr. Rumsfeld. Absolutely.
    Senator Warner. Second, that in your capacity as Secretary 
of Defense, the Chiefs can continue under your administration 
to come before Congress and give us their views.
    Mr. Rumsfeld. Yes, indeed.
    Senator Warner. That is fine.
    Mr. Rumsfeld. I would prefer they give them to me first.
    Senator Warner. Well, that is all right. We will get them. 
Let us turn to another threat. It is interesting. I have done a 
lot of study on this. We know about the military threat, but 
there is another threat. That is the industrial base that 
America has been put to a tremendous task of trying to survive 
in the face of 12 to--a dozen years of decline in defense 
spending. They find very tempting avenues to go out into the 
private sector and do business and forget about all the 
regulations in the Department of Defense and the uncertainty of 
defense spending and take that on and simply worry about their 
bottom line.
    But fortunately, we have a lot of courageous people who are 
willing to continue to provide our industrial base. So you 
bring that business experience which is very valuable, not 
unlike Dave Packard with whom I served with. He really 
understood the need to strengthen the industrial base.
    Together with the competition from firms in Europe 
primarily where those firms have government support in some 
instances. So give us your thoughts on that. Then I address a 
quote by the President-elect here. They will want to get some 
clarifications.
    ``We will modernize some existing weapons and equipment 
necessary for current tasks. But our relative peace today 
allows us to do this selectively. The real goal is to move 
beyond marginal improvements, to replace existing programs with 
new technologies and strategies to use this window of 
opportunity to skip a generation of technology.''
    That is a bold challenge. I bring back your recollection--I 
left the Department in roughly 1974. You came in shortly 
thereafter. You remember the bones of TFX were all over the 
Department, billions of dollars lost in trying to manufacture 
an airplane to hang every trinket known to mankind on it until 
it sunk of its own weight. We then experienced the A-12 which I 
can show you that. Billions of dollars lost.
    Well, today we are working on, I think, some essential 
programs. I will not mention them here. One indeed needs to be 
scrutinized and that is the VSTOL and you know that craft, the 
Marines. It is important to the Marine mission. We have to give 
very serious consideration to that program.
    But I am not getting into programs. I want you to explain 
to me against that background your definition of skipping a 
generation of technology and the impact that could have on this 
industrial base.
    Mr. Rumsfeld. Yes, sir. First, with respect to the study on 
the defense industrial base, let me say that I agree with you. 
I had the privilege of being briefed by General Tom Morman who 
served, I believe it was on the Defense Science Board that did 
the study. It is a very serious problem. I mean, the return on 
investment in the defense industry today is not sufficient to 
attract investment. The government does not make things. We 
purchase things. We acquire things. That industry has to be 
there. To be there, it has to be viable from an economic 
standpoint or people are not going to invest in it. It is a 
very serious problem.
    Second, with respect to the President-elect's remarks about 
skipping generations and that, clearly the review is going to 
have to address this. But it seems to me there is at least two 
ways that one can achieve advances in technology.
    I do not want to bring up ancient history, but as fate 
would have it, I was in the Secretary of Defense's office when 
the subject of the M1 tank came along. The argument was that it 
should continue to be another upgrade of a new diesel. Let us 
do another diesel and a couple more diesels. I decided no. I 
said let us go to a turbine engine.
    Now, that takes a major weapon system and moved it into an 
entirely new generation of technologies at that time.
    Senator Warner. I think that is helpful. Let me get in one 
last question here. You will have an opportunity to amplify 
that for the record. That is the doctrine of the use of force. 
General Powell, the Secretary of State designee, once stated 
that we should always execute the decisive results and be 
prepared to commit ``the force needed to achieve the political 
objective''.
    I was quite interested the other night in looking at the 
Lehrer news hour. Our Secretary of State, Mrs. Albright, I urge 
you to go back and look at that transcript. I will just pick 
out one of her quotes. I do that respectfully, but it says as 
follows. In answering that question about where she was with 
regard to the Powell doctrine, ``It does not have to be all or 
nothing. If you think about the fact that you have to employ 
every piece of force that you have and you have months to plan 
it and the earth is flat, you are never going to do anything.'' 
In other words, you need the full--I have time limit. Give us 
your parameters of thinking of how you are going to advise the 
President of the United States as to when to send into harm's 
way the men and women of the Armed Forces, and, frankly, when 
not to send them.
    Mr. Rumsfeld. Well, that is an enormous question and an 
exceedingly important one and I would be happy to talk about it 
for a few seconds here. Could I go back to the tank first? I 
would not want to leave you with the idea that the only way to 
transform is to go from one generation of technology and 
leapfrog into a new one. There is another way. I am not as 
familiar with it. But with respect to the same tank, it is my 
understanding that it has gone from I think the M1 to the M1--
what is the second?
    Senator Warner. M1A2.
    Mr. Rumsfeld. A2, right.
    Senator Warner. This is the tank expert right here.
    Mr. Rumsfeld. But it has gone from analog to digital. Now, 
there you have taken a platform that exists and you have not 
done a leapfrog with the whole platform, but you have taken 
some electronics and leapfrogged. There are plenty of 
opportunities to do things where we can significantly improve 
capabilities, both with respect to the system itself, but also 
with respect to the pieces of the system or elements of the 
platform if you will.
    Now, with respect to your question. This is a subject that 
is important. It is sensitive. It is in my view a presidential 
issue and not a Secretary of Defense issue alone. It is a 
national security council term issue. We have not met. We have 
not deposited ourselves and worried this through.
    All of us in that team have opinions and all of us have 
opined on this subject, publicly and privately, from time-to-
time, including the President-elect.
    The elements that come back from time-to-time are is what 
you think you want to do actually achievable? It may be 
meritorious. It may need to be done. But if you can't really do 
it, oughten you maybe not to try? That's a tough one to 
evaluate. In no case is it a cookie mold you can press down and 
say there is the answer. Each of these are subjective and 
difficult.
    The second that comes to mind is resources. Do you have the 
resources? You might be able to do it. But if you are spread 
all over the world, you simply do not have the capabilities at 
that given moment, then you have to face up to the truth. That 
is that you cannot do everything.
    A second thing that comes back from time-to-time is to what 
degree is this particular activity or recommendation truly a 
part of our national interest? That is something that is a 
consideration. It is one of the dimensions of the debate and 
discussion.
    Another I would say is are there artificial constraints as 
to how you can do this? I personally believe it is terribly 
important that we have a very clear understanding of what the 
command structure is and who is deciding what. That to the 
extent humanly possible you avoid a committee that has not pre-
decided these things and ends up interminably debating as to 
what should be done with various aspects of an engagement.
    I think last, and there may be others I have forgotten, but 
I thought about this last night. How would you characterize 
what success is? When you have done something, how do you know 
when you have done it that you have done what you went in to 
do? What is success? What is your exit strategy? When does it 
end? Is there some point where it is over? Or is it 
interminable?
    Now, I do not know where that positions me across that 
spectrum because I tried to avoid characterizing where I happen 
to think in any given case because I do not know. It really is 
something I wanted to talk to the President-elect about and 
Secretary designate Powell and Condy Rice and the folks that 
are interested in this. It is an enormously important subject.
    Chairman Levin. Thank you, Mr. Rumsfeld. Senator Kennedy.
    Senator Kennedy. Thank you, very much, and congratulations. 
Mr. Rumsfeld, during the campaign President-elect Bush made 
some interesting arms control proposals, including the 
reduction of nuclear weapons well below the START II levels and 
removing them from hair trigger status. I have long been an 
advocate of arms control and was pleased to see the President-
elect's interest in this area.
    I understand that when you were with President Ford as 
Secretary of Defense, you did not support the SALT II Treaty 
and are now opposed to the Comprehensive Test Ban Treaty. Will 
you support the President-elect's arms control agenda?
    Mr. Rumsfeld. You can be sure I will support the President-
elect's agenda. He is the President. I will, however, offer my 
views. I hope persuasively and thoughtfully in deliberation of 
the National Security Council as I did during that time. I 
mean, people, honorable people, can come to different views. I 
did with respect to SALT II.
    Senator Kennedy. You just had an exchange with Senator 
Levin on missile defense. As you know, the failure of the two 
most recent NMD flight tests has cast significant doubts on the 
viability of the current system. When the President-elect 
announced you as the nominee, you spoke of a need for the 
United States to develop a missile defense system that will 
work. I am interested in what your definition is of a system 
that will work.
    You have spoken recently about the successes you've had in 
your discussions with our allies. When will we know that it 
will work? Will you establish as a baseline which requires that 
it has to pass a field test?
    Mr. Rumsfeld. Senator, I would really like to avoid setting 
up hurdles on this subject. I was reading the book ``Eye In The 
Sky'' about the Corona Program and the first overhead satellite 
and recalling that it failed something like 11, 12, or 13 times 
during the Eisenhower administration or the Kennedy 
administration. They stuck with it and it worked and it ended 
up saving billions of dollars because of the better knowledge 
we achieved.
    In this case, if I could just elaborate for a moment, the 
principle of deterrence, it seems to me, goes to what is in the 
minds of people who might do you harm. How can you effect their 
behavior?
    The problem with ballistic missiles with weapons of mass 
destruction, even though there may be a low probability, as the 
chart that Senator Levin I believe mentioned suggests, the 
reality is they work without being fired. They alter behavior.
    If you think back to the Gulf War, if Saddam Hussein, a 
week before he invaded Kuwait, had demonstrated that he had a 
ballistic missile and a nuclear weapon, the task of trying to 
put together that coalition would have been impossible. There 
is no way you could have persuaded the European countries that 
they should put themselves at-risk to a nuclear weapon.
    People's behavior changes if they see those capabilities 
out there. I think we need missile defense because I think it 
devalues having that capability. It enables us to do a much 
better job with respect to our allies.
    Now, finally, I do not think many weapons systems arrive 
full blown. Senator Levin or somebody mentioned phased and 
layered. Those are phrases that I think people not improperly 
use to suggest that things do not start and then suddenly they 
are perfect. What they do is they get them out there and they 
evolve over time and they improve.
    So success, this is not the old Star Wars idea of a shield 
that will keep everything off of everyone in the world. It is 
something that in the beginning stages is designed to deal with 
handfuls of these things and persuade people that they are not 
going to be able to blackmail and intimidate the United States 
and its friends and allies.
    Senator Kennedy. Well, I think you've made a good response 
to that question. I hope this means that we have assurances 
that there will be a very careful review.
    Mr. Rumsfeld. Absolutely.
    Senator Kennedy. In terms of the effectiveness of this 
missile defense system; it is going to have to meet a criteria. 
I understand that you are not prepared to establish that 
criteria today, but I assume that it is going to be meaningful 
criteria in terms of actually being able to function and be 
able to work in the different phases.
    Mr. Rumsfeld. Yes, sir.
    Senator Kennedy. Let me move to the question of Colombia. 
What is your sense of the capacity of the military in these 
countries to address the challenge? How are we going to respond 
to reports about the conflict spilling over in the area and in 
the region? How are we really going to be able to determine the 
difference between the counter insurgency and the counter 
narcotics? Can you tell us what you are thinking?
    This is complicated. It is specialized. It is enormously 
important. We are going to have to address this, and I would be 
interested in knowing your thinking at this time. We will have 
more time later on to discuss this, but can you tell us now 
what your thoughts are?
    Mr. Rumsfeld. Senator, it is not something that I have been 
able to get briefed into. It is my understanding that the 
Department of State has the lead on this. I understand that 
there is a cap that has been put on by Congress on the numbers 
of people, military people, that are engaged.
    It is complicated. I am one who believes that the drug 
problem is probably overwhelmingly a demand problem and that it 
is going to find--if the demand persists, it is going to find 
ways to get what it wants. If it is not from Colombia, it will 
be from somebody else. If I were the neighboring countries, I 
would be concerned about spillover as well.
    I think it is a very important problem and it is not 
something I have had a chance to screw my head into or talk to 
the National Security Council team about.
    Senator Kennedy. For the next 8 days, I am the Chairman of 
the Seapower Subcommittee of this committee. Under Senator 
Snowe, we had extensive hearings about the decline of the 
shipbuilding budget and about what actions are going to be 
necessary in order to meet responsibility in terms of the 
Navy's budget. Have you had a chance to review that and can you 
give us any ideas of how you think that that issue is going to 
be addressed in the future?
    Mr. Rumsfeld. Well, I have not been briefed on it at all. I 
am by background and interest very interested in the Navy. I 
recognize the importance--Senator Snowe indicated to me that we 
are currently building ships at a level that if it continues 
will permit the U.S. Navy to decline down into very low 
numbers. That the only thing that can be done if we are to 
maintain the kind of capabilities in the world where we can 
project power and presence through the United States Navy, we 
are going to have to increase the shipbuilding budget. I will 
stop there.
    Senator Kennedy. Senator Roberts, who is Chairman of the 
Emerging Threats and Capabilities Subcommittee, has been a real 
leader in the whole area of bio-terrorism and cyber-terrorism. 
Chairman Levin also referenced these issues in his opening 
comments. Could you give us some assessment of what your 
concerns would be in those areas?
    Senator Frist and I successfully completed legislation, 
last session, in the area of bio-terrorism. I would be 
interested in your own views regarding the nature of these 
threats as we look down the road.
    Mr. Rumsfeld. Well, I have been made aware of Senator 
Frist's and your interest and Senator Roberts'. I would rank 
bio-terrorism quite high in terms of threats. I think that it 
has the advantage that it does not take a genius to create 
agents that are enormously powerful. They can be done in mobile 
facilities, in small facilities. I think it is something that 
merits very serious attention, not just by the Department of 
Defense, but by the country. I have an interest in it and 
certainly would intend to be attentive to it.
    Senator Kennedy. Thank you, very much. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Kennedy follows:]
            Prepared Statement by Senator Edward M. Kennedy
    Thank you, Mr. Chairman. I join in welcoming Mr. Rumsfeld to the 
committee, and I congratulate him on his nomination to be Secretary of 
Defense.
    Mr. Rumsfeld has a very impressive record of service to the 
country, from his years as a Naval Aviator, as Congressman from 
Illinois, as Director of the Office of Economic Opportunity, as 
Ambassador to NATO and, of course, as Secretary of Defense under 
President Ford. The list is long and has continued to grow.
    He recently served as Chairman of the Ballistic Missile Threats 
Commission. He is currently chairman of the Commission to Assess 
National Security Space Management, and also chairman of the 
Congressional Leadership's National Security Advisor Group. This 
extraordinary background will be extremely valuable in dealing with the 
many issues that the Armed Forces of the United States currently face 
and that we will certainly face in the future.
    Many challenges are waiting for our answer, starting with national 
missile defense and nuclear arms control. They also include force 
protection, which is especially urgent after the recent tragic attack 
on the U.S.S. Cole.
    We're concerned about the heavy demands on our forces that strain 
both morale and readiness. We're concerned about training issues, such 
as how to maintain training areas and ensure adequate training budgets. 
We face challenges of recruitment and retention, when private sector 
competition remains strong. We must do more to ensure that military 
personnel and their families have good pay and good housing. They need 
modern equipment, modern weapon systems, and modern information 
technology. We have to be concerned about cyber-security and about 
chemical and biological terrorism.
    Significant changes have occurred in the military since Mr. 
Rumsfeld was Secretary of Defense in the 1970s. Women now hold many 
military roles traditionally reserved for males, including service as 
combat pilots and on combat ships. There are more women generals and 
admirals than ever before, and the potential for further gains is 
large.
    The military still faces many problems in this area, including the 
need to prevent harassment and discrimination in all forms. I continue 
to believe that the current ``Don't Ask, Don't Tell'' policy has been a 
failure. As a world leader, our Armed Forces need to set the example on 
human rights issues and treat all men and women, regardless of their 
diversity, with the respect and equality that they deserve.
    Mr. Rumsfeld's many leadership experiences, in both public service 
and private life, will serve him well in dealing with all these 
challenges and I look forward to working with him in the years ahead.
    Thank you, Mr. Chairman.

    Chairman Levin. Senator Thurmond.
    Senator Thurmond. Thank you, Chairman Levin. Mr. Chairman, 
I congratulate you on your leadership during this period of 
transition and appreciate your bipartisan approach in holding 
this hearing. Your chairmanship continues the committee's long 
tradition that the defense of our Nation is above politics.
    Before I address the issue at hand, I want to express my 
appreciation for our outgoing Secretary of Defense, Bill Cohen. 
His tenure as Secretary of Defense will be marked by great 
advances in the quality of life for our military personnel and 
their families, the refocusing of the Department of Defense to 
the new threats of weapons of mass destruction and cyber-
terrorism, and, more importantly, assuring this Nation's 
position as the world's only super power. I wish him and his 
lovely wife, Janet, the best in their future endeavors.
    Secretary Rumsfeld, congratulations on your nomination and 
welcome to this your second confirmation hearing as Secretary 
of Defense. I hope that the praise of Bill Cohen does not lead 
you to the conclusion that you will not have any challenges as 
you move into the Office of the Secretary of Defense.
    Our Nation is fortunate to have an individual such as you 
follow Bill Cohen. You have a distinguished career both in the 
public and private sector and have shown your willingness to 
take on the tough issues facing the Department of Defense. 
Those of us who served on the Armed Services Committee in the 
mid-70s can recall the problems you encountered then with the 
state of our Armed Forces--they were undermanned, morale was 
sagging, drugs were rampant, and most important they were 
underfunded. Fortunately, drugs in the Armed Forces are no 
longer a major issue. However, overworked and undermanned units 
and underfunded programs are problems that will again test your 
mettle.
    Mr. Secretary, you have been a proponent for a strong 
defense. I can assure you that this committee will provide you 
the support that will be critical as you work to strengthen our 
Armed Forces to meet the challenges of the future. Our Nation's 
history is replete with examples of failing to anticipate the 
future challenges and degrading our military capability.
    Coincidentally, it was 50 years ago, at the beginning of 
the Korean War, when the United States sent the ill-equipped 
and under-trained troops of Task Force Smith into battle with 
tragic results because we failed to anticipate the threat. As 
we commemorate that War, we should make the pledge of never 
again will this Nation send another Task Force Smith to battle.
    Mr. Secretary, I wish you success and look forward to 
working with you in the coming years.
    Thank you very much, Mr. Chairman.
    Mr. Rumsfeld. Thank you, sir.
    Chairman Levin. Thank you, Senator Thurmond for those 
comments and we very personally appreciate it and the 
leadership that you have shown on this committee and in so many 
other places in this Senate over the years.
    Senator Lieberman, we all give you a special welcome back, 
some of us with greater enthusiasm perhaps than others. But 
welcome back.
    Senator Lieberman. Thanks, Mr. Chairman. Mr. Rumsfeld, I 
was privileged to have a courtesy call yesterday from Don 
Evans, the Secretary of Commerce designate, and I open by 
thanking him for all he did to bring me back to the United 
States Senate. So it is good to be here with my colleagues, 
particularly on this committee.
    Mr. Rumsfeld, I welcome you and join my colleagues in 
expressing not only my admiration for your extraordinary record 
of public and private service, but for your willingness to take 
on this job at this time.
    I have not read ``Rumsfeld's Rules'' yet, but I will 
certainly--I remember there was a little red book in another 
country a distance from here. I do not know what color the 
``Rumsfeld's Rules'' are going to be.
    But as your opening statement suggests, at this critical 
time, unusual time in our national security history, there is a 
surprising amount that we have to do. We are--when I think of 
the comparison that you made of the Cold War situation you 
found on the last occasion when you came in as Secretary of 
Defense and the remarkably difference circumstance you find 
today.
    We are not in ideological and strategic conflict with 
another major super power, the Soviet Union. We are it. But we 
are nonetheless challenged. Technology is expanding the threats 
as you have documented. We have tremendous demands on us to 
maintain our force, to keep our troops with the quality of life 
and training that we want them to have.
    This is going to require some very tough leadership from 
you and priorities, the setting of priorities, and a 
willingness to try to implement those.
    We have been, in the time I have been privileged to be on 
this committee and therefore have been involved more directly 
in national security questions, watching Congress and the 
military and the Executive Branch, we have generally reached 
beyond in authorization what we have ultimately--and 
conceptualization--of what we would ultimately be willing to 
pay for.
    I think we are at such a point now where legitimate claims 
can be made for resources. We have not yet put them together. I 
mean, in the mad cap experience to which Senator Levin refers 
that I went through last year, a glorious experience actually 
and one that I thoroughly enjoyed, the Bush-Cheney campaign had 
a document out suggesting a willingness to spend $45 billion 
more over the next 10 years for national security.
    Vice President Gore and I doubled that to $100 billion, big 
spenders that we are. But what is interesting, and, of course, 
focuses the tough choices you will have, is that the Chiefs, 
the Joint Chiefs, who I believe Senator Warner referred to, 
have essentially told us that what we really need is at least 
$50 billion more a year.
    So let me first put in an appeal which you and I have 
spoken about which is that all of us who care about national 
security have to really reach out and try to build more of a 
public understanding for the need to spend more to keep our 
national security strong in this age.
    When you look at what people think we ought to spend more 
money on as we are deciding how to spend the surplus, national 
security comes out way down on the list. That is not good. As 
long as that exists, it is going to be hard for us here to make 
the decisions we should make.
    The second point is how do you begin to approach the excess 
of needs and the deficiency of resources and make the kind of 
priority decisions that we need you to make?
    Mr. Rumsfeld. I want you to know that I understand the task 
facing the Department of Defense is enormously complex. It is 
not a time to preside and tweak and calibrate what is going on. 
It is a time to take what has been done to start this 
transformation and see that it is continued in a way that 
hopefully has many, many more right decisions than wrong 
decisions.
    There is no one person who has a monopoly on how to do this 
or genius. It is going to take a collaborative relationship 
within the Executive Branch and with Congress. I just hope and 
pray that we are wise enough to do it well.
    But the one thing we know of certain knowledge is that it 
is not a peaceful world. It is a different world. It is more 
peaceful in the sense that the Soviet Union is gone. But it is 
nonetheless a more dangerous and untidy world. We also know 
that the power of weapons today is vastly greater than it was 
in earlier eras. We know that with the relaxation of tension at 
the end of the Cold War, the proliferation of these 
capabilities is pervasive. It is happening. We have to 
acknowledge that.
    If I know anything, I know that history shows that weakness 
is provocative. Weakness invites people into doing things they 
would not otherwise think of. What we have to do is better 
understand what will deter and what will defend against this 
new range of threats. I do not look at them in isolation. I do 
not think of long-range ballistic missiles and short-range 
ballistic missiles and cruise missiles and terrorism as 
something that is disconnected.
    I think of it as a continuum. With the Gulf War, the world 
was taught to not try to take on western armies, navies, and 
air forces because you lose. Therefore, you should try 
something else. That means you are going to look at things like 
information system attacks and cyber war. You are going to look 
at bio-terrorism. You are going to look at other kinds of 
terrorism. The vulnerability of space assets has to be 
worrisome to people. As well as shorter range ballistic 
missiles and cruise missiles in addition to long-range 
ballistic missiles.
    Senator Lieberman. Let me ask this question. I agree with 
you that we have to prepare to face this new range of threats 
to our security because no sensible antagonist will take us on 
as we were taken on in the Gulf War because we were too 
dominant. Does that not inevitably mean that we will have to 
cut some of the programs that we are now spending money on that 
may be more continuations of that earlier threat scenario than 
the new one?
    Mr. Rumsfeld. It is entirely possible that that kind of a 
recommendation could come out of this review. Whether it will 
or not, I do not know until I dig into it. I mentioned the need 
for collaboration with Congress. That is true. We also need to 
make darn sure that we are dealing with our allies in a way 
that they are brought along. We are not alone in this world. We 
have some enormously important allies in Asia and in Europe and 
friends in other parts of the world. I think that those 
relationships as well are terribly important.
    Senator Lieberman. Let me ask about the review that you 
have spoken of. Congress has authorized by law a quadrennial 
defense review. That was a way to try to encourage and mandate 
an incoming administration to look forward and to require that 
those in the military present some big thoughts over the 
horizon.
    You have also referred to, and the President-elect referred 
during the campaign and more recently, to a strategic review. 
Help me, if you would, to relate those two reviews to one 
another. Is the strategic review the incoming administration 
has in mind the quadrennial defense review authorized by law? 
Or, since that does not give you a final product until 
December, though it gives you some before, are you thinking 
about a separate review to help you make some of the budget 
priority decisions I have just referred to?
    Mr. Rumsfeld. The latter. My impression is that what the 
President-elect has in mind is that we will take a look at how 
we view the world and our circumstance in it and fashion some 
thoughts with respect to broader strategy and then get down 
into more of the details as to the defense establishment's 
capability or appropriateness of our current arrangements to 
deal with those kinds of threats and opportunities.
    The quadrennial review, I do not know--you say it is 
finished in December?
    Senator Lieberman. Well, you get earlier versions of it 
this spring. Then the final product will be in December.
    Mr. Rumsfeld. My impression was that when Bill Cohen came 
in, it came at him very fast. The timing seemed to me, looking 
from outside, to be unfortunate. Because I did not get the 
impression that Secretary Cohen had much of an opportunity to 
effect it or to calibrate it. I am a little apprehensive that 
that is going to be the case in my situation.
    The realistic thing is too--my whole life, I have 
benefitted from attracting enormously talented people to help 
me. I think when I took my first job in the Executive Branch, I 
hired Frank Carlucci and Dick Cheney and Ron James and people 
all across the spectrum from--Bill Bradley worked there and 
Christy Todd Whitman worked there. Micky Kantor I noticed had 
some remarks to make the other day and he was there as a legal 
service lawyer.
    We had a wonderful group of people. Unless you are a Mozart 
or an Einstein who goes off in a closet who does something 
brilliant, the rest of us people, just people, we get other 
people to help us figure things out.
    They are something like 500,000 security clearances behind 
in the Pentagon today. Now, the process of getting confirmed is 
just unbelievable. I just hope each of you will have that 
opportunity someday. [Laughter.]
    It is an amazing process. I am going to recommend to the 
President that he think about getting some sort of an outside 
commission to look at this. Because the questions from the 
committee are one set. From the Ethics Office, there is 
another. The Pentagon has some others. You are supposed to fill 
them all out in 5 minutes. There is no way to do it.
    I am worried about getting people picked, recommended, 
which I cannot do, as we know, until I am the man. I am not. I 
have to have help. I am being practical as a manager. I know 
that we are going to have to figure out a way to flesh out this 
system a little bit.
    Senator Lieberman. Thanks very much. I would say from your 
performance here this morning that it is clear that you are the 
man. [Laughter.]
    Mr. Rumsfeld. Thank you. Thank you.
    [The prepared statement of Senator Lieberman follows:]
           Prepared Statement by Senator Joseph I. Lieberman
    Thank you Mr. Rumsfeld for appearing before this committee today. 
You have a distinguished record of service to our Nation and you bring 
impressive credentials to the job for which you are being considered. 
You will need all the expertise you have acquired over your long 
career, for the job ahead of you is one of the most consequential 
positions that one can hold in our government. You will assume 
stewardship of our military at a time when it is at a crossroads 
between taking the path defined by the ideas and methods of the 20th 
century or the path defined by the needs and potential of the 21st 
century. The Quadrennial Defense Review (QDR) and the NDP conducted in 
1997 pretty well define these two roads for you, and define the choices 
you face. These panels produced two fundamentally and constructively 
different evaluations. The 1997 QDR's conclusion was that although 
future military challenges will likely be different, the ``two war'' 
construct, with some modifications, is and will continue to be the 
proper standard against which to gauge our capability and preparedness. 
By this standard, the QDR concluded, the current forces and weapons are 
satisfactory, and will continue to sustain our military dominance if 
modernized in kind. Much of the Pentagon effort since then has been 
toward increasing the budget to maintain and modernize this force. The 
members of the NDP disagreed. They asserted that ``we are at the cusp 
of a revolution in warfare'' and ``unless we are willing to pursue a 
new course,'' one different than that proposed by the QDR, ``we are 
likely to have forces that are ill-suited to protect our security 
twenty years from now.'' Indeed, the NDP questioned the advisability of 
continuing to use the ``two war'' standard and of continuing to procure 
some of our current core weapons. They concluded that transformation is 
the path we should follow, and therefore that spending better was more 
important than spending more.
    The good news is that the first steps along the path toward 
transformation are being taken. The defense establishment has come to 
accept transformation as a fundamental policy goal, which is evident 
from a growing number of important official speeches and documents. 
Secretary of Defense Cohen has said that our defense policy is 
transformation, and that the strategy to implement it is ``shape, 
respond, and prepare now.'' The QDR states ``we must meet our 
requirements to shape and respond in the near term, while at the same 
time we must transform U.S. combat capabilities and support structures 
to be able to shape and respond effectively in the face of future 
challenges.'' And transformation as a goal is at the core of Joint 
Vision 2020--the Joint Chiefs of Staff vision that guides the 
continuing transformation of America's Armed Forces for the 21st 
century.
    The bad news is that while the services are, to their credit, 
beginning to ``talk the talk'' and even to take steps to transform 
themselves, our actions and resourcing are not really keeping pace with 
the pronouncements. While most see the need for future forces 
fundamentally different than those of today, they urge that change be 
cautious and deliberate. So we continue to place the highest priority 
on current readiness, keeping our organizations and weapons prepared to 
deal with the threats they were designed to deal with, while trusting 
that incremental and evolutionary improvements will allow them to adapt 
to deal with new and more dangerous threats as they emerge. 
Consequently, our resource allocation is still too much like it was 
during the Cold War.
    As a consequence, you are faced with funding a force that costs 
billions more than has been budgeted for it, and that requires more by 
far than President-elect Bush has said he is willing to spend. His 
stated intent to add significantly more money to missile defense 
programs will only add to that shortfall. We have heard that you intend 
to narrow the funding gap by cutting or terminating existing programs. 
You may have to make many of these decisions now before you are able to 
complete a strategic review. If you must do that, those decisions will 
impact the strategic review you will design and conduct as Secretary. 
The commitment of resources to execute the conclusions of that review 
will be substantial, and changing course will be exceedingly difficult 
and time consuming, and we will not likely have the money we would need 
to change course quickly. So if we choose the wrong road now we will 
not have the trained, ready military we will need to dominate on the 
battlefields of the future.
    I look forward to hearing what your approach will be to resolving 
these difficult conflicts, what philosophy you intend to follow to 
provide guidance to those who must decide about initial priorities 
among sea, land, air, and missile programs, and what guidance you 
intend to give the Pentagon to direct their design and execution of the 
upcoming strategic review. I look forward to working with you to build 
a dominant military for the 21st century.

    Chairman Levin. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I want to 
congratulate the President-elect for his outstanding selection 
of Don Rumsfeld to be the next Secretary of Defense. His 
reputation for intelligence, candor, and competency is well-
deserved and we look forward to a rapid confirmation of his 
nomination so that he can get right to work.
    I guess there are very few benefits of old age, but every 
new administration we hear the same complaint that you just 
mentioned. It is a very legitimate complaint. Perhaps maybe we 
ought to do something about this process.
    I am not worried about the willingness of people like you 
to serve in all candor because you are a patriot first and 
last. But I am worried about at lower levels of government, the 
Under Secretary, the Assistant Secretary. Those positions when 
highly qualified men and women look at it and then see what 
they have to go through, they decide not to do that. I think 
that is the compelling reason.
    I do not have a lot of sympathy for you, Mr. Secretary, but 
I certainly do for others that you need to attract on your team 
as you so well pointed out.
    I was interested in your comments to Senator Warner's 
questions about the use of force and when and when not the 
United States troops should be committed. Those of us who 
assailed the administration and NATO's conduct of gradual 
escalation during the Balkans campaign took heart in your 
comments at that time, particularly your reflections on CNN on 
April 4, 1999, with respect to comparisons of Kosovo to Vietnam 
which went as follows, and I quote: ``There's always a risk in 
gradualism. It pacifies the hesitant and the tentative. What it 
didn't do is shock and awe and alter the calculation of the 
people you're dealing with.''
    During an interview with Chris Matthews, you noted that it 
was a mistake to say that we would not use ground forces 
because it simplifies the problem for Milosevic.
    It seems to me we ought to stop saying things to appease 
and placate our domestic political audiences. We ought to start 
behaving in a way that suggests to Milosevic that it is in his 
interest to end this and stop ethnic cleansing and come to the 
negotiating table. I appreciate those words very much.
    But my question is do you think we should have gotten 
involved in Kosovo to start with?
    Mr. Rumsfeld. There are pieces of that on both sides 
obviously. I think that NATO had historically been a defensive 
alliance and been thought of as that. Its image has altered as 
a result of that.
    My comments--and they sound pretty good to me too. I am 
kind of pleased I said those things--were obviously after the 
fact. It was we're there. By golly, I'm no fan of graduated 
response. If we're going to do something, let's do it.
    But I do not know that--the problem is that in our society 
people seem to watch how people manage a crisis or a conflict 
rather than what preceded it. Of course, the real kudos ought 
to go to people who manage things in a way that the conflict 
does not happen.
    Senator McCain. Or not manage them so that the conflict 
does happen.
    Mr. Rumsfeld. Yes, sir. When I think back to the Balkans, I 
mean, goodness. Again, I do not want to bring up ancient 
history. But all of us for years did scenarios and war planning 
and war games with respect to Yugoslavia coming apart and 
problems in that part of the world. If we know anything, it is 
that the Europeans I think--by waiting for the Europeans to do 
something, things evolved in a way that are unfortunate. I 
think it requires a lot more effort up front.
    Senator McCain. I think that is certainly true of Bosnia.
    Mr. Rumsfeld. It is.
    Senator McCain. Kosovo is a little closer call.
    Mr. Rumsfeld. Yes, it is.
    Senator McCain. So you do not have an answer?
    Mr. Rumsfeld. I do not. That is correct.
    Senator McCain. I would like to mention a couple more 
issues to you. I will again propose the question that you 
previously addressed in the advanced questions to the 
committee. Do you believe we still have excess military 
infrastructure that can and should be reduced?
    Mr. Rumsfeld. Instinctively I do, but knowledgeably I do 
not. Because I have not gone back in and reviewed it. But I 
would say this----
    Senator McCain. Have you heard the comments of Colin 
Powell, the Joint Chiefs of Staff, the Secretary of Defense 
that you are succeeding, virtually every military expert in 
America?
    Mr. Rumsfeld. I have. I am kind of old-fashioned. I like to 
figure things out for myself. But I am a firm believer that 
base structure has to fit force structure.
    Senator McCain. But it does now?
    Mr. Rumsfeld. As I say, my impression is it does not. I 
have not been in there and--the next question after that would 
be, well, in what way? Of course, I do not know what way 
because I have not been over there getting briefed. But my 
brain tells me, my instincts tell me from the past that in fact 
not only should base structure fit force structure, it does 
not. That something should be done about it. Because we cannot 
afford to waste resources with the important tasks we have 
ahead of us. But I am not in a position to say this is how it 
ought to be done.
    Senator McCain. Recently, the United States made a very 
significant investment in problems in Colombia. Largely, but 
not totally, but largely unnoticed by Americans and their 
representatives. I take it from your answer that you have less 
than well-informed personal views which you prefer to discuss 
with the appropriate officials before taking a public position 
and that you have not paid as much attention to it as maybe 
other issues as well.
    Mr. Rumsfeld. That could be true. I have not. I have not 
been to the country in years. I know only basically what I know 
from the press.
    Senator McCain. Do you know that we just invested about 
$1.3 billion in the last appropriation cycle?
    Mr. Rumsfeld. That is my understanding.
    Senator McCain. We are upgrading a base in Ecuador which I 
found out--perhaps I should not admit this--by looking at a 
newspaper.
    Mr. Rumsfeld. I did not know that.
    Senator McCain. There are a lot of things going on in 
Colombia, Mr. Secretary. I hate to harken back to other 
conflicts, but I hope you will get very well aware of this 
situation, what we are doing, what the involvement of U.S. 
military personnel is in the area and what kind of investment 
and more importantly what goals we seek here. Because very 
frankly, I do not know the answer to those questions yet. I 
think that at least those of us who sit on this committee 
should be much better informed. I hope that the committee will 
start looking at the situation from an Armed Forces standpoint 
very quickly.
    Mr. Rumsfeld. I will certainly invest the time needed to do 
that.
    Chairman Levin. Senator McCain, if I could just interject. 
Senator Warner and I were just chatting. He raised that very 
same subject. I think both of us would agree with your comment 
that we should, indeed, as a committee, get more deeply 
involved and we will.
    Senator McCain. I thank you. I will take responsibility for 
not knowing about the upgrade in Ecuador, but very frankly I am 
not sure many Americans know about it either. Maybe that is 
perfectly fine. But I think we had better have a close and 
careful examination of exactly what we are committed to. I am 
not sure that the members of this committee or Americans, would 
agree with a proposed decision on the part of Colombia to give 
more areas of sanctuary to the so-called narco traffickers 
there. But anyway, finally, Mr. Secretary, I am sure that you 
are aware of my concerns about excess spending and the increase 
of pork barrel spending. It has risen--my time has expired.
    Senator Warner. We cut into your time. Go ahead and take 
that question.
    Senator McCain. Well, I will take about 5 or 10 more 
minutes, Mr. Rumsfeld. [Laughter.] It has gone up. It continues 
to go up. When you were Secretary of Defense, it was about $200 
to $300 million a year of unrequested add-ons in the Defense 
appropriations process.
    It is now up around $6 or $7 billion at minimum--at 
minimum. New gimmicks have been invented since you were there. 
One of them is the so-called wish list that comes over from the 
Pentagon, that although not requested in the budget, would be 
really great to have. So they pick and choose from that very 
long list.
    I want to say this to you, Mr. Secretary, and I do not 
think you need any advice. But unless you get a handle on this 
spending, a billion and a half dollars for an aircraft 
helicopter carrier that the Navy and the Marine Corps said they 
neither want or need, continued acquisitions of C-130s which 10 
years ago the United States Air Force said they did not need, 
we are going to have a C-130 in every schoolyard in America 
before this is over.
    You are going to have to get a handle on this and you may 
have to face down some very powerful interests, both on the 
Hill and off the Hill. So I see it lurch out of control.
    Why do I care? I was just down at Marine Corps Air Station 
Yuma. They are still living in World War II barracks. We are 
purchasing equipment that the military neither wants nor needs. 
We hope we have addressed the food stamp problem. Although, I 
am not sure we have satisfactorily.
    But while all this excess and unnecessary spending is going 
on, the men and women in the military have suffered. It is not 
an accident that Army captains are getting out at a greater 
rate than in the history of this country's armed services. I do 
not mind losing a few admirals and generals. I do mind losing 
the high quality captains that are the future leaders of this 
country.
    So I strongly urge you to look at this issue because the 
urgency of the Cold War situation has therefore allowed us a 
degree of license in unnecessary spending out of the defense 
budget, much of which has nothing to do with defense. You are 
never going to be able to meet our requirements of a new and 
modernized military, much less the men and women in the 
military being taken care of unless you address this issue. I 
thank the Chairman for the additional time.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Mr. Chairman, the President-elect should be commended for his 
outstanding selection of Don Rumsfeld to be the next Secretary of 
Defense. Secretary Rumsfeld's reputation for intelligence, candor, and 
competency is well deserved, and I look forward to today's hearing with 
great interest.
    The decline in spending on national defense that we witnessed for 
15 years coincided with dramatic global changes that, rightly or 
wrongly, resulted in a level of deployments that exceeded any previous 
period in memory. That protracted decline in defense spending did not 
come without a price.
    We can rightly point to the United States Armed Forces as the most 
capable in the world, but they are not omnipotent, and they do have 
their breaking point. Shallow analyses that point to the size of the 
U.S. defense budget relative to those of potential enemies combined and 
an overemphasis on the two-war strategy as a planning guide have 
impeded our ability to accurately gauge requirements. The myriad 
readiness problems that have been well documented occur not because of 
the two-war strategy, but despite it. The resources and attention 
needed to correct those problems are required irrespective of that 
strategy. The readiness problems we are witnessing today occur as a 
result of the operational tempo demanded of our military combined with 
a force structure ill-suited to the projected international environment 
of tomorrow. They occur because of the failure of the Clinton 
administration and of Congress to adequately provide for a strong 
defense.
    Not to be ignored is the considerable damage done to our national 
defense through the growing problem of pork-barrel spending and its 
related infrastructure issue, the closing of unneeded military bases. 
Defense spending bills have become a national disgrace, with increasing 
percentages of the budget wasted by earmarking many billions of dollars 
for solely parochial reasons. The problem, in fact, has gotten so bad 
that, increasingly, pork-barrel spending is not occurring on top of 
requested spending levels, but in place of it. In short, we are adding 
pork at the expense of vital programs. Should anybody doubt this 
statement, just wait for the uniformed services to request supplemental 
spending bills for the current fiscal year reflecting spending that 
should have already been appropriated.
    For the past several years, together with Senator Levin, I have 
cosponsored legislation authorizing additional base closing rounds. 
That legislation has been regularly and summarily rejected by the 
Senate. Yes, the Clinton administration politicized the 1995 round and, 
yes, it costs money to close bases. But the real reason for the 
rejection of these amendments has been to protect jobs, not promote 
national defense. The Clinton administration will be gone in a matter 
of days, and no rational person can possibly argue that a closed 
military base costs money once inevitable and programmed cleanup costs 
are completed. Additional base closings, together with contracting out 
of certain activities and the elimination of protectionist statutes, 
can account for as much as $20 billion per year in savings--clearly 
enough to make a sizable dent in the modernization shortfall we are 
facing.
    I am also interested in hearing Secretary Rumsfeld's approach to 
the use of force. Many of the most contentious debates that occur in 
this committee and on the floor of the Senate involve unforeseen and 
ongoing military contingencies. The question of when and how to use 
military force is central to our responsibilities as a government, the 
question of war powers central to our responsibilities as an 
institution. Secretary Rumsfeld's thoughts on these matters will be of 
immeasurable importance as we continue to wrestle with ongoing 
deployments in the Balkans and Southwest Asia and the unknown but 
certain deployments of the future.
    Mr. Chairman, I thank you for the opportunity to address this 
session of the committee and look forward to Secretary Rumsfeld's 
opening statement.

    Chairman Levin. Thank you. Do you have a quick comment on 
that before I call on Senator Cleland?
    Mr. Rumsfeld. I certainly agree that the question that has 
to be posed is whether or not something is going to contribute 
to our national security and whether or not it meets the 
priorities that are important for this country. That has to be 
our focus.
    Chairman Levin. Thank you. Senator Cleland.
    Senator Cleland. Mr. Secretary, since the C-130s are built 
in Georgia, I would like to say that I am for schoolyards being 
able to move anywhere in the world at a moment's notice. 
[Laughter.]
    Let me just say that I am fascinated by the ``Rumsfeld's 
Rules''. I appreciate your appreciation for quotes and 
anecdotes.
    In listening to your incredible resume and your wonderful 
experience that you bring to this task--and you certainly have 
my support for this job. I think you are going to be an 
outstanding Secretary of Defense--I thought about the line by 
Jack Kennedy that the thing he appreciated most in the White 
House was a sense of history. The thing he feared most was 
human miscalculation.
    I think you bring something very special to this post and 
to this committee and to this country with your great sense of 
history, not only in service to this country yourself, but in 
the defense post. I think you can help us avoid a lot of human 
miscalculations. So congratulations to you.
    Mr. Rumsfeld. Thank you, sir.
    Senator Cleland. In terms of deployment of American forces, 
I would just like to followup on my fellow combat veteran John 
McCain's comments and some of the comments that have been made 
here. I was privileged to visit General Powell when he was 
Chairman of the Joint Chiefs of Staff. Again, a fellow Vietnam 
veteran, someone like many of us that learned a lot of bitter 
lessons about deployment of forces in the Vietnam War.
    I once heard General Powell say something very powerful. He 
said, ``my job is to recommend to the President the best advice 
to the President on how to use the American military to stay 
out of war. But if we get in war, to win and win quickly.''
    When he said that, it occurred to me that that was the best 
mission statement that I had ever really heard about the 
purpose of the American military.
    So he is going to be one of your great colleagues in the 
cabinet and I think that kind of thinking I heard from you 
today. I was appreciative of your comments about using force, 
using American military, using our posture to the extent to 
which we did not have to commit it. But obviously, if we commit 
it, then there are certain things we have to do to make it 
successful.
    In terms of success, I am glad to hear you say that we must 
ask the question how do we know when we are successful? I asked 
this question of several administration people in terms of the 
Balkan War. I said early on, make sure you define victory. 
Because one of these days you are going to have to declare it.
    It leads me to a Clausewitz line that I like very much that 
the leader must know the last step he is going to take before 
he takes the first step. So that steps in motion a whole set of 
thought processes.
    Senator Roberts and I took the floor all last year to argue 
out the question in a bipartisan way basically about when to 
commit American forces, about what is in the strategic national 
vital interest of the United States and what is not. That if 
you commit, then you have a definable objective. Then you do 
have an exit strategy. It has been a pleasure to work with my 
colleague across the aisle.
    I just wanted to share those thoughts with you that might 
be of help in fulfilling your task.
    Onto the question of our men and women in uniform. I 
appreciate your interest in your statement about working hard 
to make sure that we recruit the best and the brightest, that 
we do not just lower our standards, that we do not dummy up the 
military just to get numbers. That is fool's gold. That is 
false economy. Any way you cut it. I would rather have less 
numbers and keep quality people.
    So we do want to go after the best and the brightest, not 
only to join but to stay. Senator McCain pointed out senior 
captains, senior NCOs. I have tried to fight through this, work 
through this, over the last 4 years I have been on the 
Personnel Subcommittee. We have looked at various ways, various 
incentives, not only for recruitment, but for retention. It 
does seem to me that retention is a real special challenge. I 
have learned that you recruit a soldier, but you retain a 
family. You have a family military now. Those families are 
interested in the same things families outside the post are 
interested in.
    One of them is education. For the last 2 years, this body 
has put forward a notion that with my initiative that we ought 
to look at the GI bill and maybe see if we can use that to 
apply to family members to entice members to stay into the 
military for a full career. I would just like for you to take a 
look at that as we go along as just one of our tools that we 
use to retain quality personnel.
    I appreciate in your statement a focus on intelligence. I 
cannot help but feel that intelligence prevents many battles 
and wins many battles when you get in them. That the 
coordination of our intelligence capabilities is itself a 
challenge.
    I mentioned the deployments. Senator Roberts and I came to 
basically a point of view of realistic restraint. We just saw 
with the U.S.S. Cole. Now, if you project force or project 
power, you also make yourself in this terrorist world, in this 
terrorist environment, a target, so that power projection 
requires power protection.
    Therefore, I think we have to be very realistic about our 
power projection. I think one of the reviews that I would be 
grateful for you to do as you review the American military is 
to see where it is deployed around the world. We literally are 
out there everywhere in the world and I think it's a time for 
review.
    In terms of weapons systems, I noticed that a couple of 
years ago, you joined with seven other Secretaries of Defense 
to endorse full funding for the F22. That is something that I 
think that is important to our national security interest.
    Let me just say that one of the Rumsfeld's Rules is do not 
necessarily avoid sharp edges. Occasionally, they are necessary 
to leadership.
    So onto a sharp edge. National missile defense. I have been 
a big supporter of theater missile defense, but especially the 
Arrow system that we worked very closely with, with our Israeli 
friends. I am a big booster of research and further testing of 
an anti-missile system.
    I guess I feel right now that we are not ready for 
deployment of a system. I am not sure that the concept has been 
proven. But I am willing to work on it to prove it out, test 
it, and then make judgments on deployment later.
    But one of the wonderful briefings I have received in the 
last year or so is from your commission on missile systems. Of 
course, we were all concerned about the North Korean launch of 
the missile in the Pacific.
    I went to South Korea right up to the DMZ this past August. 
It was fascinating to get the briefing on North Korea and see 
where they were. We got a fascinating briefing. We had given to 
us by the Department of the Army a photo taken at night of 
lights on the Korean peninsula which also showed lights just 
into Southern China.
    It is interesting. You see lights in South Korea. You see 
lights in China. North Korea literally is a big, dark, black 
hole. It is amazing to me that 50 years after the Korean War, 
they still cannot turn the lights on.
    I just wonder--we do not want to overreact here. I think 
any missile defense system that is deployed should be well 
thought out and not just on the basis of one launch by a 
country that cannot even turn the lights on.
    So I point that out to you because I am willing to walk 
down this path with you to continue to prove the concept. But I 
think first things first. Let us prove the concept and then 
think about deployment.
    I would say too that in my analysis of threats, it is this 
terroristic threat that is maybe our biggest challenge. 
Particularly, in terms of missile systems one that Senator Sam 
Nunn and that great expert on nuclear warfare, Ted Turner, have 
recently articulated and that is that we might want to look at 
the whole question of the Soviets, former Soviets, or the 
Russians now and their de-alerting of their existing systems 
and any loose nukes that might be out there. That might be one 
of our biggest challenges in terms of missile threats.
    Now, I would like for you just to respond to maybe the last 
point that I raised.
    Mr. Rumsfeld. Well, I think the danger that has been 
suggested with respect to the disarray in the former Soviet 
Union and the large number of nuclear weapons is a very real 
concern. There is just no question but that it has to be looked 
at in two dimensions. First is the actual materials which there 
are a number of countries that have appetites for it. If your 
circumstance is that anything is for sale, there is a risk.
    The second dimension to it is the fact that you have a 
large number of very bright, talented, experienced weapons 
people in the Soviet Union that are not getting paid and not 
getting their pensions. Again, if everything is for sale, their 
brains and their knowledge is for sale. It results in a risk 
for accelerated proliferation that is serious and real and I am 
very much concerned about it. I recognize the fact that the 
United States needs to address it and play a role in trying to 
avoid that proliferation.
    I would like to add one word on missile defense if I might. 
We talk frequently about the risks of deploying missile 
defense. We are properly concerned about our allies in that 
regard. We are properly concerned about attitudes by Russia and 
China and other countries.
    I think it is useful from time-to-time to also ask 
ourselves what are the risks of not deploying missile defense. 
I would mention several. One is it seems to me if some 
countries that have significant technological capabilities, 
decide that they are vulnerable to ballistic missiles from 
their neighbors and that we lack the ability to assist them in 
defending against that capability. That we may contribute to 
proliferation by encouraging them to go forward and develop 
their own nuclear weapons and their own ballistic missiles. I 
think that is just a fact.
    Second, the other thing that worries me if we do not deploy 
ballistic missile capability is I have been in the White House 
as Chief of Staff and as Secretary of Defense on the National 
Security Council. I have seen the process that a President has 
to go through when there is a risk or a threat.
    If we know of certain knowledge that another country has a 
nuclear warhead that can effect us and we do not feel we have a 
good grip on their motivations, their behavior patterns, what 
could dissuade them, and we know that they are capable of using 
it, we are forced into one of two course of action.
    Either we acquiesce and change our behavior and change our 
interest and alter what we would otherwise have done or we have 
to preempt. I think putting a President of the United States 
and a country in the position where their choices, their 
options, are so minimal that they are forced into a position 
of--as Israel was--with respect to the radon and nuclear 
capability in Iraq so many years ago--where a President is 
forced to go in and take action of a preemptive nature because 
he lacks the defensive capability to persuade those people that 
it is not in their interest to do that.
    So that is a dimension to this missile defense thing that I 
do not think gets into the debate to the extent it ought to. I 
think we need to look at deterrence across the spectrum.
    I was in a meeting up in New York. Some person raised their 
hand and they said that my father was a good friend of Colonel 
House. I thought back, my goodness gracious, Colonel House. 
That was Woodrow Wilson's day. I was talking about missiles and 
missile defense and so forth. He said, one day my father asked 
Colonel House why he was so courteous. Why he was just the most 
gracious, courteous, person he had ever met. The answer was by 
Colonel House, well, young man, I grew up when gentleman 
carried revolvers. If you know everyone has a revolver, you 
tend to be courteous.
    Well, North Korea is selling, has been and is today to my 
knowledge, to my not today knowledge, but very recent 
knowledge, selling those capabilities and technologies and 
trading them around the world. They are an active world class 
proliferator. It is my understanding when the United States 
representatives met with them, their response was when we asked 
if they would change their behavior with respect to ballistic 
missiles, one of their responses was something to the effect 
that you are America. You have bombed in the Sudan. You have 
bombed in Afghanistan. You are bombing in Kosovo. You are 
bombing in Iraq. You are giving food aid to North Korea. Now, 
why? Why is the behavior so different? Well, they believe it is 
because they have those weapons. They believe that those 
capabilities they believe they have are sufficient to alter 
behavior of their neighbors. I do not think we as a country 
want to think that the old mutual assured destruction where the 
United States and the Soviet Union could kill each other 
several times over is necessarily a deterrent that is well-
fashioned for the period we are moving into.
    Senator Cleland. Thank you very much, Mr. Secretary. Thank 
you very much, Mr. Chairman.
    Chairman Levin. Thank you. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I can remember 
when I heard on TV--I did not have any indication that you 
would be nominated nor that you would accept if nominated to 
this position. I told my wife there is not a person in America 
today as qualified as Don Rumsfeld for this position.
    I also had two personal reasons that I am rejoicing in your 
nomination. One is that as Senator Durbin said when you are 
inducted into the National Wrestling Hall of Fame--of course, 
that is located in Stillwater, Oklahoma. So you are even more 
of a hero there than you are in some other areas. I remember 
also when I came from the House to the Senate in 1994, I went 
through some of these confirmation hearings on the different 
Chiefs. I can remember identifying with them because we had 
served at the same time. You know, myself and Elvis Presley and 
some of these guys. So now as of about 5 years ago, Mr. 
Chairman, there is not one person in the service who was 
serving when I was serving. So you and I are contemporaries. We 
served precisely the same years and now I have someone I can 
communicate with.
    I want to also complement you and your family and I look at 
your beautiful granddaughter over there. I think there is not 
one of my eight grandkids who would listen to me for 2 hours 
and be as patient as she is.
    I think when we assess this thing, I know there is this 
euphoric attitude after the Cold War is over that somehow the 
threat is not there. I really believe the threat is greater 
today. I think we are in the most threatened position that we 
have been in as a nation in our Nation's history. Incidentally, 
George Tenet, the Director of Central Intelligence, agrees with 
that.
    I think when you look at it, Senator Warner is right. We 
cannot try to pin you down as to what kind of a cost this is 
going to be. But I would say that when you have the Joint 
Chiefs all agreeing that the range is similar between $48 and 
$58 billion additional. Do you have any reason to believe that 
is unreasonable?
    Mr. Rumsfeld. I have no reason to believe any of those 
numbers are unreasonable. It takes--I really do like to get my 
brain engaged before my mouth. I need to get in there and pour 
over it and I need to get some people to help me.
    Senator Inhofe. Well, there is one thing that has not been 
brought up that I think you--I am going to ask that you look 
into immediately. That is what we are going to have to do in a 
supplemental before the current budget year. We have been 
talking about it in future years. But right now we have a list 
that has been provided us with $4.5 billion of near term 
readiness requirements. We are talking about spare parts and 
equipment maintenance and another $2.5 billion for emergency 
personnel or modernization programs.
    Now, we have been told that if we are unable to get that, 
we may have to cease training in the fourth quarter of this 
year. I am going to ask you to really pay attention to the 
current needs, those things that are having a deteriorating 
effect on our retention and those things that have to be done.
    Our RPM accounts, for example. I mean, you can go down to 
Fort Bragg in a rainstorm as I have been there and our kids are 
covering up their equipment with their bodies to keep them from 
rusting. So those are the things that have to be done 
immediately. I hope that you would look at those.
    Mr. Rumsfeld. I will indeed. Thank you, sir.
    Senator Inhofe. Just so there is clarification as to the 
responses that you made, when the Chairman first asked about 
the missile defense law that we passed, the Missile Defense Act 
of 1999, and he read the two parts of that bill that I think we 
have heard many, many times before, do you see that there is 
anything incompatible about those two statements?
    Mr. Rumsfeld. The first is deploying an effective system.
    Senator Inhofe. As soon as technologically possible.
    Mr. Rumsfeld. The second was negotiation.
    Senator Inhofe. Yes.
    Mr. Rumsfeld. Not that I can see.
    Senator Inhofe. Well, I do not either. But I just wanted 
to--because I think that the act is very specific. Let us keep 
in mind that was not just passed by a huge margin in the House. 
It was passed by a 97 to 3 margin in the Senate. Not one person 
who has been in here today voted against it. So I would only 
ask that you would recommend to the administration that you 
immediately start complying with Public Law 106-38 and start 
getting and deploying.
    By the way, I want to say that if there is one--one of the 
great recent services that you have provided for this country 
is the Rumsfeld Commission. I think if I were to single out one 
or two sentences in there when those who were opposed to our 
meeting what I think our requirements are on a national missile 
defense system. They often say, well, these countries, Iran, 
Iraq, and other countries are not going to be able to have this 
capability for another five to ten years. You pointed out that 
an indigenous system does not exist today. That these countries 
are trading technologies and trading systems. So I appreciate 
very much your making that statement and making it very clear 
to this committee.
    Third, there is one thing that we have not really talked 
about and I would ask that you address. It does not have a lot 
of sex appeal. Not many people talk about it. But it is our 
near-term readiness and modernization.
    Just as one example, and I could use many other examples, 
but this is a personal one. I chair the Readiness and 
Management Support Subcommittee and have had a great deal of 
concern as to how these efforts over in Kosovo and Bosnia are 
draining our ability to defend America. Just one being the 21st 
TACOM. The 21st TACOM is responsible for ground logistics in 
that area of the Balkans, but also in the Middle East. They're 
at about 100 percent capacity right now.
    Some of the equipment they had over there in the M915 
trucks that we are using, many of them with over a million 
miles on them. We determined that if we could just use the 
amount of money that we are going to have to use to maintain 
those for a 3-year period, we could replace them with new 
vehicles.
    Now, the problem there is an accounting problem that you 
are well aware of. I am not sure whether it was back in 1975 or 
not. But we cannot get anything done and prepare for the future 
when fiscally in a normal prudent business decision, you would 
say, no. We are not going to keep fixing those. We are going to 
have new ones.
    Do you have any thoughts about how you might address that?
    Mr. Rumsfeld. Well, there is no difference that the 
government operates quite differently from business. There is 
also no question that at a certain point people do not maintain 
fleets of things that are antiquated because of the upkeep and 
maintenance cost of continuing them.
    Senator Inhofe. Yes, but, of course, we have been doing it.
    Mr. Rumsfeld. Yes, sir.
    Senator Inhofe. Because a question on base closure was 
asked, I would only make a request that the force structure 
that we have today is about one-half of what it was during 1991 
during the Persian Gulf War. That can be quantified, half the 
Army divisions, half the tactical air wings, half the ships 
going out from 300 ships--600 ships to 300 ships.
    After the U.S.S. Cole, tragedy took place, I went over 
there. I talked to virtually every rear admiral and everyone 
who was around there. They said that if we had had--when we cut 
down the number of ships, we cut our refuellers or our oilers 
down from 32 to 21. If we had not done that, every one of them 
to the last one said we would not have gone into Yemen or the 
other ports. We would have refueled at sea.
    Now, when you go from the Mediterranean through the Suez 
Canal and the Red Sea and turn left and go up the Mediterranean 
Sea to the Persian Gulf. It is about 5,000 miles. You have to 
have some refueling capability. Virtually everything in there 
is in kind of a threatened area.
    I went back to the bone yards and found that we had two 
vehicles out there that were in very good shape and cost very 
little more money to put them back into service. Those were the 
Higgins and the Humphreys. I would hope that you would consider 
doing that and talk to your Navy people--and, of course, you 
draw on your own experience there--as to why it would not be 
prudent to pull some of those back into service and to get that 
refueling capability in that area. I just make that request 
that you would consider that.
    Mr. Rumsfeld. I will be happy to look at it. Thank you, 
sir.
    Senator Inhofe. Thank you, very much.
    Mr. Rumsfeld. Could I clean up two things that are a little 
embarrassing to me? The Senator mentioned I was in the 
Wrestling Hall of Fame. It is true. But I did not go in the 
front door with the great wrestlers. I came in the back door 
with the so-called distinguished Americans who had wrestled. It 
was Abraham Lincoln, George Washington, Dennis Hastert, and 
Rumsfeld and a few others. [Laughter.]
    Second, I was described as the captain----
    Senator Warner. We would add John Chafee is my 
recollection, our distinguished colleague.
    Mr. Rumsfeld. That is right, exactly. I was described as 
captain of the college football team and it is true. But I was 
a little guy. It was the 150-pound football, not the big guys. 
I would not want to let the record stay inaccurate.
    Chairman Levin. Well, we will keep the record open for a 
number of additional comments. [Laughter.]
    Senator Inhofe. One last thing just for the record. I would 
ask also in this setting and this environment today at this 
time, you cannot get into your F-22, joint strike fighters, 
crusader, global hawk, for example. I know you were a real 
supporter of unmanned vehicles sometime ago.
    But I hope for the record maybe later on you can have some 
time to think about this and address these platforms. We would 
like to believe, and many of the American people believe, that 
we have the very best of everything. But I was very proud of 
Gen. John Jumper not too long ago when he said in terms of air-
to-air vehicles, we are not superior. In fact, the Russians 
have some things on the market right now, the SU-35, that are 
better than any air-to-air combat vehicle we have, including 
the F-15s. So I am hoping that you will be able to assess our 
modernization and get it as specific as you can as early in 
your term as possible.
    Mr. Rumsfeld. Thank you.
    Chairman Levin. Thank you. Senator Reed.
    Senator Reed. Thank you, Mr. Rumsfeld, not only for your 
willingness to serve, but for your lifetime of public service.
    Mr. Rumsfeld. Thank you.
    Senator Reed. We had a chance this morning to chat briefly. 
I thank you for that also. I was listening to your response to 
Senator Warner about the conditions for committing American 
forces today. Frankly, and I think you would agree, that it is 
in a sense a work in progress that you are trying to understand 
the forces and the structure that we have and the threats we 
face.
    I might suggest that we are pretty good at the initial 
phases of these operations because they are essentially 
military operations, the forceful entry into contested 
territory. We are not very good at the back end which is the 
policing operation which is humanitarian operations. One of the 
reason we are not is that we do not have those resources. We 
have not been able to coordinate with our allies and with 
national organizations to have such resources. I wondered if 
you might comment upon this whole issue, not just in terms of 
America's role, but being able to parade an organization or 
mutual organizations that can do missions that you might feel 
needed to be done. We have the forces militarily to make the 
entry, but we are uncertain about whether or not we can extract 
ourselves in reasonable time. Would you comment on that?
    Mr. Rumsfeld. Well, I can comment briefly. We all know it 
is a lot easier to get into something than it is to get out of 
it. We all know that everyone is not capable of doing 
everything. In fact, the tasks as you properly point out are 
distinctly different. I have had an impression over the years 
that we have a significant role in helping to deter aggression 
in the world. The way you do that is to be arranged to defend 
in the event you need to which you know well as a West Point 
graduate.
    Having been at NATO and looking at different countries and 
what the different countries bring to that alliance, it is 
pretty obvious that the United States has some things that we 
bring to it that are notably different from some of the other 
countries. It is also true that the other countries can bring 
significant things.
    I do not think that it is necessarily true that the United 
States has to become a great peacekeeper if you will. I think 
we need to have capabilities, as you are suggesting, that are 
distinct from war fighting capabilities. But I also think other 
countries can participate in these activities that are needed 
in the world from time-to-time and bring--they can bring the 
same capabilities we can to that type of thing. Whereas, they 
cannot bring the same capabilities that we can, for example, 
with respect to air lift or sea lift or intelligence gathering 
or a variety of other things.
    There is one other aspect to being on the ground in an 
area. Someone mentioned with respect to the U.S.S. Cole. If you 
are a space asset or the Marines that were in Beirut Airport 
back when I was President Reagan's Middle East envoy, if you 
provide an attractive target, a lucrative target, somebody may 
want to try to test whether or not they can damage that target.
    That is a lot less true--the United States of America is an 
attractive target. So when we are on the ground, we tend to 
become a bit more attractive, a bit more ``lucrative'' as a 
target. It seems to me that it may very well be that other 
countries can do some of those things in a way that is less 
likely to create the kind of targeting that the United States 
tends to draw.
    Senator Reed. Thank you. You made reference to and 
anticipated my next question which as the former Ambassador to 
NATO, you have a great experience you are bringing to the task 
because there are issues, one of which is to what extent NATO 
will operate or European forces will operate independently of 
NATO.
    We have a current controversy about the depleted uranium 
being used in Kosovo. We have an ongoing debate and discussion 
about national missile defense. Most--many European governments 
are frankly opposed to it.
    Then we also have the issue not only of whether or not we 
are willing to essentially allow our allies to do some things, 
frankly because they might get the impression that they can do 
everything alone and they do not need us any longer. I wonder 
from your perspective and as you go in how do you propose to 
deal with some of these issues relative to NATO?
    Mr. Rumsfeld. I would begin with several principles. I 
think NATO is just an enormously important alliance. It has a 
record of amazing success. I believe in consultation with our 
NATO allies. I think that they have difficult political 
situations and close margins in their parliaments. They need 
time. They need discussion with us. They need leadership. They 
need an opportunity so that the solution can be fashioned in a 
way that makes sense.
    With respect to the European defense force, let me just put 
it this way. I think anything that damages the NATO cohesion 
would be unwise for Europe and for the United States and for 
our ability to contribute to peace and stability in that part 
of the world.
    Senator Reed. During the campaign, Mr. Rumsfeld, the Bush 
campaign made a great point about suggesting that China was a 
competitor. Frankly, in that type of dynamic, there is always 
the fear that competition will lead to conflict. How do you 
think you can use your resources at the Department of Defense 
to preempt conflict with China?
    Mr. Rumsfeld. Well, I think how China evolves in the 21st 
century into the world in Asia and elsewhere in the world is 
enormously important. I think our behavior and the behavior of 
other countries in the region and the world is going to make a 
difference as to how they evolve. I would characterize our 
relationship with the People's Republic of China as complicated 
and multi-dimensional.
    It is true, as the President-elect said, that we are 
competitors. They are seeking influence in the region and we 
are in the region. We have been in the region. I think it is 
important we have been in the region because we have 
contributed to peace and stability in that part of the world.
    We are trading partners simultaneously. So on the one hand, 
we are somewhat of a competitor. On the other hand, we are a 
trading partner.
    We watch what they say and they write. I am no more an 
expert than others, but I do read what some of their military 
colleges, writings are saying. We see their defense budget 
increasing by double digits every year. We see an awful lot of 
their military doctrine talking about leapfrogging generations 
of capabilities and moving toward asymmetrical threats to the 
United States, cyber warfare and these types of things.
    I do not think the history between the United States and 
the PRC is written. I think we are going to write it. I think 
we have to be wise and we have to be engaged and we have to be 
thoughtful. But we cannot engage in self-delusion. They are not 
strategic partners in my view. They are--it is a multi-faceted 
relationship.
    Senator Reed. Let me touch upon this. Many of my colleagues 
have national missile defense. But from the context of the 
overall theory of deterrence, you described from your vantage 
point in the White House the sort of two choices. If someone 
had a ballistic missile that could reach our shores, the choice 
is being acquiescence or preemption.
    Yet, for decades, Russia had exactly that capability, the 
Soviet Union. I would suggest we did not acquiesce and we did 
not conduct preemptive strikes.
    It seems to me that what is going on here in this 
deterrence theory is that it is as much about the psychology or 
one's perception of the psychology of the opponent as well as 
throw weight and defense mechanisms.
    Mr. Rumsfeld. Absolutely.
    Senator Reed. Inherent, it seems that what you are saying, 
is that you really distinguish some of these so-called rogue 
states as being irrational as different from the Soviet Union, 
unable to appreciate the fact that any type of unilateral 
attack on the United States, even if frankly--one would assume, 
even if it was successfully defeated by a missile defense, 
would result in almost inevitable retaliation. Is that at the 
core of your thinking, that we are dealing now with some 
irrational actors?
    Mr. Rumsfeld. No, sir. I must not have explained myself 
well. Two things. My comments about the behavior of the states 
that we are talking about--I am not terribly enamored of the 
phrase rogue state. It leaves the impression that the 
leadership there is kind of like a rogue elephant careening off 
a wall blindly and that is not the case. I mean, I have met 
with Saddam Hussein and I met with the elder Assad as Middle 
East envoy. These people are intelligent. They are survivors. 
They are tough. They do not think like we do. Goodness knows, 
they do not behave like we do with respect to their neighbors 
or their own people. But they are not erratic.
    You are correct. We absolutely must--that is why this 
intelligence gathering task we have as a country is so much 
more important today, not just because of proliferation but 
because the weapons are so powerful.
    It is not a matter of counting beans in Russia, how many 
missiles, how many ships, how many tanks? It is a matter of 
knowing a lot more about attitudes and behaviors and 
motivations and how you can alter their behavior to create a 
more peaceful world.
    The thing that I would want to clarify is that when I said 
what I said, I was distinguishing between the relationship of 
the United States and the Soviet Union. There the so-called 
mutual shared destruction indeed worked. The potential to be 
able to have massive retaliation I think created a more stable 
situation.
    To pretend that the fact that we had through massive 
retaliation a stable situation with Russia and that that 
necessarily would deter not only Russia, but others from making 
mischief is obviously historically wrong. We had a war in 
Korea. We had a war in Vietnam. Saddam Hussein went into 
Kuwait. Not withstanding the fact that the United States and 
the Soviet Union had a perfect ability to destroy each other 
several times over.
    So what you need is deterrence across the spectrum that 
addressed the evolving threats that are notably different as 
you well know. I just must not have made myself very clear.
    Senator Reed. Well, again, this is a topic that cannot be 
exhausted in 5 or 6 or 7 minutes.
    Mr. Rumsfeld. No, it is an interesting topic.
    Senator Reed. I appreciate your thoughtfulness and your 
comments. Thank you very much, Mr. Rumsfeld.
    Mr. Rumsfeld. Thank you, sir.
    Chairman Levin. Thank you very much, Senator Reed. We are 
going to call on two more Senators before lunch. We are going 
to try to squeeze in both Senator Roberts and then Senator 
Bingaman. Then we will break for lunch. If we break right at 
1:00, we will come back at 2:00. If we go 5 minutes after 1:00, 
we will come back at five after 2:00.
    Senator Roberts. Thank you, Mr. Chairman. Let me say I 
think you are the right man for the right job.
    Mr. Rumsfeld. Thank you, sir.
    Senator Roberts. This is a little different experience in 
regards to the usual nomination process at least for me and I 
think other members of the committee. We have all of our 
prepared questions that are prepared by staff in large type so 
that we can read them and go on from there.
    But I think in your case, you shine the light of experience 
and expertise into the nomination fog and I think it has been 
very helpful. I think it has been educational. I think you 
caused us to think a little bit and I think that is very 
appropriate. I feel compelled to use part of my time--I should 
not, but I am going to--to inform my colleagues and Mr. 
Rumsfeld that in terms of our vital national security 
interests, I think that Latin America, Central America, our 
involvement in Colombia in the Southern Command where there are 
31 nations involved is just as important as the Balkans. I 
noted that there was some concern in regards to maybe Congress 
going in with a blindfold or not really fully aware of all the 
details.
    Let me point out that the subcommittee of which I am 
privileged to chair and Senator Bingaman was the ranking 
member, we had lengthy hearings and the full committee had 
hearings. We had General Wilhelm. We had the Assistant 
Secretary of Defense. We had the Assistant Secretary of State. 
We had two of those. We had two ambassadors. We went over in 
considerable detail what the pros and cons were in regards to 
our involvement.
    More especially since we left Panama and went to Miami and 
found thousands of miles in the Southern Command that we are at 
risk. We do have bases. We have them in El Salvador. We have 
them in Aruba. Then I think we have them in Ecuador as well to 
do a tough job.
    We took a lot of infrastructure away to go over to the 
Balkans. Well, why am I saying this? That is because there are 
360 million people down there. The average age is 14 with a lot 
of problems.
    In regards to immigration, in regards to drugs, in regards 
to trade, in regards to possible revolution, and in regards to 
our energy supply, where we have about 22 percent of our energy 
coming from Venezuela and Mexico and in regards to what a 
fellow down there named Chavez is doing, I think we better pay 
attention to it.
    Now, I cannot say whether our policies in Colombia are 
going to work or not. But I do say that we have taken a 
considerable interest in this, had a subcommittee debate and in 
the full committee and in the Appropriations Committee where 
General Wilhelm had to stand tall and parade rest before the 
appropriators and in the Senate and in the House, this was not 
done without due consideration. I would urge your attention to 
that because I think it is very important.
    I want to talk about--I want to ask you if--in fact I am 
going to recommend a criteria in regard to the use of troops. 
This is in concert with what my dear friend Senator Cleland and 
I determine in our realistic restraint foreign policy dialogue 
that at least us two listened to. We had to listen to each 
other over on the Senate.
    We came up with the criterion before we would put the 
troops in. One was the stakes are vital to the United States. 
Second, public support is assured. Third, overwhelming force is 
used in regards to a clear definition of goals and purpose. 
Last, everybody agrees on an exit strategy. I think that is a 
pretty good list.
    The reason I mention that is on behalf of the warfighter. I 
was in Kosovo on exactly the same day that we mounted up and 
the 27th Marines went in. I took the advantage to get briefed. 
They probably did not want to brief me. That was the last thing 
they wanted to do was see a U.S. Senator there as they were 
getting ready to mount up.
    But I asked a lance corporal, I said, what are your goals 
here? Do you think you can do the job in regard to Kosovo? He 
said, sir, I'm a United States Marine. I can do the job.
    I said, but what is your personal goal? He said my personal 
goal is to take care of myself so that I can come home after 6 
months to my wife and kids because I know just as soon as I 
leave, these guys are going to start shooting each other all 
over again.
    I think too many times it is not that we should not pay 
attention to the geo-political concerns and the strategic 
concerns. My concern is the warfighter, that person in uniform.
    I believe that as we go down this we remember that it is 
one thing to have a cause to fight for. It is another thing to 
have a cause to fight and die for.
    So I am in agreement with the Powell Doctrine. I pretty 
much said what I think we ought to do on down the road. I offer 
that up as a suggestion.
    The Emerging Threats and Capabilities Subcommittee of which 
I am privileged to chair and we have drugs and we have 
terrorism and we have weapons of mass destruction and we have 
the counter threat reduction programs. We have a whole bunch of 
things. Every staff member back here has to deal with me 
because of this subcommittee and the foresight of the 
distinguished Chairman.
    We asked witnesses in terms of things that really bother 
you, whether it is a cyber attack or a biological attack or 
whatever it is, what keeps you up at night? What is the one big 
thing that keeps you up at night? Now, other than you filling 
out all the paperwork you have to in regard to the ethics 
business, what keeps you up at night?
    What would you tell the Emerging Threats and Capabilities 
Subcommittee right now that you think is an immediate concern 
in terms of our national security? What keeps you up at night? 
Now, I know you said that you cannot really single one out, 
that this is a continuum and a many faceted kind of thing here 
with missile development, terrorism, so on and so forth.
    Mr. Rumsfeld. Well, two things I would say. I would repeat 
what I said about the importance of considerably improving our 
intelligence capabilities so that we know more about what 
people think and how they behave and how their behavior can be 
altered and what the capabilities are in this world.
    I think the goal ought not to be to win a war. The goal 
ought to be to be so strong and so powerful that you can 
dissuade people from doing things they otherwise would do. You 
do not have to even fight the war. That takes me to the second 
point.
    The second point is I do not know that I really understand 
what deters people today because I do not think one thing 
deters everybody. I think that we need to understand that there 
are different parts of the world. There are different types of 
leaders with different motivations. We have to do a lot better 
job of thinking through deterrence and assuring that we have 
done the best job possible.
    I mean, everyone is going to make mistakes. But today when 
mistakes are made with the power of weapons, they are not 
little mistakes, they are big mistakes.
    We need to do everything we can to fashion a set of 
deterrents, a nest, a fabric that does the best possible job 
for this country.
    Let me go to your first point just very briefly and add a 
thought for consideration. You mentioned overwhelming public 
support as a criteria. I am uncomfortable with that. I think 
that leaders have to lead and build support. I look back at 
history. I think there have been times when we have had to do 
things when the public was not there yet.
    I think that what needs to be done is to have leaders in 
office, presidents, who think these things through, who make 
the right decisions, who are sufficiently persuaded that 
overwhelming support, public support, follows.
    You cannot sustain anything without it. I quite agree. But 
I think that thinking that you are going to have it at the 
outset is optimistic.
    Second, on overwhelming force. I have watched presidents 
look at their situation in a pre-crisis period, a build-up 
period. They have very few tools to deal with. The military 
tends to come in and the choices are not--you do not have a lot 
of arrows in your quiver. It is a proper thing to say we do not 
want to do something unless we are going to put the force into 
it we need. But the concept of overwhelming force in isolation 
I would think needs to have another dimension. It is this.
    In the pre-crisis period, in the early period, you can do 
things to alter people's behavior that does not require 500,000 
troops and 6 months to build up. If we are wise and think these 
things through, there are things that can be done in a build-up 
period that will persuade people they ought not to be doing 
what they are thinking about doing, that will persuade the 
people they need to support them in doing what they are 
thinking about doing, that those people ought not to support 
them.
    That does not require overwhelming force. That requires a 
lot better intelligence and a lot more tools to affect and 
alter thinking in those periods. I think we need to broaden 
that concept somewhat.
    Senator Roberts. I appreciate that. My time has expired. 
Thank you.
    Chairman Levin. Thank you. Senator Bingaman is next. We 
will then recess and Senator Allard will be first when we 
return.
    Senator Bingaman. Mr. Rumsfeld, thank you and 
congratulations on your stamina in considering all of these 
questions.
    Mr. Rumsfeld. Thank you.
    Senator Bingaman. As well as congratulations on your 
nomination. I certainly intend to support you.
    Mr. Rumsfeld. Thank you, sir.
    Senator Bingaman. One of the issues that we always hear a 
lot of talk about, but at least in my view has not been given 
adequate priority in defense budgeting, is science and 
technology.
    It seems like, at least for the last several years, every 
time we see a defense budget proposed by the administration, 
the percentage of the defense budget that is committed to 
science and technology is reduced. It always loses out compared 
to procurement, compared to readiness, compared to all these 
other things.
    I know that President-elect Bush gave a speech at the 
Citadel a year and a half ago where he talked about the 
importance of science and technology investment. He said he was 
committing an additional $20 billion--or he would if elected 
President--commit an additional $20 billion to defense research 
and development between now and 2006. I think that was the 
commitment he made in that speech or the statement he made.
    Let me add one other aspect of this. The reductions in 
growth in defense research and development in recent years has 
been justified at some of our hearings on the basis that the 
industrial companies will pick up the difference here, that 
U.S. industry is sufficiently strong that we do not need to do 
what we once did in science and technology.
    That to my mind is very much at odds with what I understand 
is happening to our defense industrial base. They do not have 
the luxury of putting substantial new resources into this area. 
So I would be interested in any comments you have about how we 
can increase research and development, defense related research 
and development and support for science and technology.
    Mr. Rumsfeld. Senator, I agree completely with everything 
you have said. When President-elect Bush announced that I was 
his choice for this post, I said that I had visited with him. I 
had read his pronouncements and plans for defense and that I 
supported them enthusiastically. Certainly with respect to 
science and technology, he is on the mark and you are on the 
mark and I agree.
    I came out of the pharmaceutical business where we invest 
in research and development that is not guaranteed to produce 
anything in the next 5 minutes. You have to be patient. You 
have to live with a lot of failures. I have been involved in 
the electronics business, quite the same.
    If you are not investing for the future, you are going to 
die. You simply run out of gas at a certain point. This 
wonderful country of ours has such fine leadership in science 
and technology. But the reality is an awful lot of the foreign 
students who used to come over here and stay and study are now 
going back to their countries.
    They are leaving with an enormous amount of knowledge and 
the country, this committee, this department, simply must be 
willing to make those investments.
    Senator Bingaman. Well, thank you for that answer. Let me 
ask about one other area that I also think tends to get short 
changed in the defense budgets that I have seen, and that 
relates to test and evaluation. Again, there does not seem to 
me at least to be a strong constituency for funding the 
necessary infrastructure to accomplish and maintain our ability 
in the test and evaluation area. I have a parochial interest in 
this. Because White Sands Missile Range is in my state. It's 
our largest, and I believe our most capable test and evaluation 
facility.
    But this is an area that I hope you will give some 
attention to. It seems to me to be one of those areas that 
falls between the stools when people start putting together 
defense budgets. It does not have the natural advocates behind 
it the way we are currently structured that would allow it to 
be given sufficient attention.
    I am glad to hear your comment. Or I will go onto another 
question.
    Mr. Rumsfeld. I am not knowledgeable about the state of 
that and will be happy to look into it.
    Senator Bingaman. One other area I wanted to ask about, and 
this has been asked about by some of the other Senators. There 
was a New York Times editorial that I am sure you saw 
expressing concern about what they anticipate would be a 
missile defense organization. The MDO recommendation to the new 
president that he needs to order construction of a radar system 
in Alaska to begin this March in order to meet the deadlines 
that you identified in the commission report that you came up 
with for actual deployment by 2005 I believe. I believe I have 
those dates right.
    I wondered if you have any insight into whether or not such 
a recommendation will be made, whether or not you would support 
such a recommendation to begin construction of a radar site in 
March or whether you believe that is premature.
    Mr. Rumsfeld. It would be premature for me to comment on 
it. There is no question we simply have to get some folks pass 
through this committee engaging that subject. I have to get 
myself up to speed. It clearly would be an issue that would end 
up with the President and the National Security Council.
    Senator Bingaman. Let me ask about one other thing, one 
other area, and that is export controls. My impression is that 
there are major problems in the system we have in place now to 
control defense related exports, that it has worked to the 
disadvantage of many of our companies that have defense related 
work, but also do a lot of commercial work. This is an issue 
that involves several departments, not just the Department of 
Defense, but the Department of Commerce, Department of State. I 
think we have probably added to the problem here in Congress by 
shifting responsibilities to the Department of State and not 
adequately funding them in this area.
    I do not know if this is an area that you are informed 
about. If so, I would be anxious to hear your views. If not, I 
would be anxious to just urge you to look at this and see if 
you could bring some constructive recommendations to this 
system.
    Mr. Rumsfeld. Well, I agree that it is something that has 
to be looked at. It is an enormously complicated set of 
problems of which I am only marginally informed. I have bumped 
into it through the Ballistic Missile Threat Commission and 
watching that set of issues. I have bumped into it through 
business on a number of occasions. There has to be a balance 
between national security interest and our obvious desire to be 
able to encourage investment in this country to create advanced 
technologies.
    To the extent you inhibit that, you do not stop it. You 
simply drive it offshore. A businessman can sit down in a room 
in Chicago and decide if he wants to do research and 
development in France or in Asia, in Japan or in Skokie, 
Illinois. Just with a decision it gets changed one place or 
another.
    To the extent we are unwise and allow a system that needs 
to be very dynamic because there is so much happening to be 
static and prevent things that need not be prevented or delay 
things to the point where people are unwilling to accept the 
costs which delay imposes, then we damage ourselves, not just 
economically. We also damage ourselves from a national security 
standpoint because we force people to go offshore to develop 
these technologies.
    So we need to give that system a good look.
    Senator Bingaman. Thank you, very much. My time has 
expired.
    Chairman Levin. We are going to recess now for 1 hour. We 
will start with Senator Allard. The order of recognition for 
all my colleagues is on a sheet of paper here, so you can see 
where in that list you will come. We will stand recessed until 
2:05.
    [Whereupon, at 1:05 p.m. the hearing was recessed.]

                           AFTERNOON SESSION

    The committee met, pursuant to notice, at 2:07 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Byrd, Cleland, 
Landrieu, Warner, Inhofe, Allard, and Sessions.
    Other Senators present: Senators Akaka, Bill Nelson, Ben 
Nelson, Carnahan, Dayton, Collins, and Bunning.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Richard D. DeBobes, 
counsel; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Gerald J. Leeling, 
counsel; Peter K. Levine, counsel; and Michael J. McCord, 
professional staff member.
    Minority staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Charles S. 
Abell, professional staff member; Charles W. Alsup, 
professional staff member; John R. Barnes, professional staff 
member; Edward H. Edens IV, professional staff member; William 
C. Greenwalt, professional staff member; Mary Alice A. Hayward, 
professional staff member; Lawrence J. Lanzillotta, 
professional staff member; George W. Lauffer, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Ann M. Mittermeyer, assistant counsel; Joseph T. Sixeas, 
professional staff member; Cord A. Sterling, professional staff 
member; Scott W. Stucky, general counsel; and Eric H. Thoemmes, 
professional staff member.
    Staff assistants present: Beth Ann Barozie, Thomas C. 
Moore, and Michele A. Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Christina Evans, Terrence E. 
Sauvain, Barry Gene (B.G.) Wright, and Erik Raven, assistants 
to Senator Byrd; Frederick M. Downey, assistant to Senator 
Lieberman; Andrew Vanlandingham, assistant to Senator Cleland; 
Jason Matthews and David Klain, assistants to Senator Landrieu; 
Gregory C. McCarthy, assistant to Senator Inhofe; George M. 
Bernier III, assistant to Senator Santorum; Thomas A. 
Vecchiolla, assistant to Senator Snowe; Robert Alan McCurry, 
assistant to Senator Roberts; Charles Cogar, assistant to 
Senator Allard; and Scott Douglass, assistant to Senator 
Sessions.
    Other Senate staff present: Richard Kessler, assistant to 
Senator Akaka; Pete Contostavlos, assistant to Senator Bill 
Nelson; Sheila Murphy, assistant to Senator Ben Nelson; Larry 
Smar, assistant to Senator Carnahan; Christopher Ford and Sam 
Patten, assistants to Senator Collins; and Jeff Freeman, 
assistant to Senator Cochran.
    Chairman Levin. The committee will come to order.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I would echo the 
comments that have been made by my colleagues on this 
committee, Mr. Rumsfeld, about your qualifications. I do not 
think anybody can legitimately question your qualifications, 
and I am absolutely delighted with the President's appointment 
in appointing you specifically as Secretary of Defense. I do 
not see how you are going to apply the Rumsfeld's Rules over 
there as Secretary of Defense when you testify before this 
committee, and I respect your administrative capabilities, and 
I think everybody here also recognizes those.
    When you visited my office we shared our experiences. I 
shared my experience on the NRO Commission. You shared your 
experience as Chairman of the Space Commission. Both reports 
are coming out with a recommendation. I guess the Space 
Commission's report is coming out today, and ours, the NRO 
Commission is already out that there needs to be, in fact it is 
critical that there is a dialogue between the Secretary of 
Defense and the Director of the Central Intelligence Agency. I 
just would hope that you would just for a moment at least 
express to me how you feel about this and what you plan to do 
to improve communications.
    Mr. Rumsfeld. Well, I thank you, and I know of your service 
on the NRO Commission and, of course, have discussed it with 
you. The international community is really not a community. It 
is a set of organizations, the CIA and the NSA and the NRO and 
the DIA and the Air Force, Army, and Navy Intelligence, the 
State Department, the FBI, there are all kinds of pieces to it, 
and I think to use the word community is an overstatement, and 
because of the way the legislation, the way the funding works, 
it is something that I think takes a lot of senior level 
interaction so that things do not get bottlenecked.
    There are some very complicated issues in rearranging our 
intelligence-gathering to fit the new century, to fit the new 
circumstance with proliferation, and I think that bureaucracies 
do not like to change. They are terribly resistant to change, 
and the only way they are going to change is if the very senior 
people who meet regularly understand where each is going, and 
recognizes the fact that each has responsibilities that cannot 
be performed unless the two of them work together.
    I suppose you could have perfect organizations and people 
who are not too good and you are not going to have very good 
organization or operation, and vice versa. You could have 
organizations that are not perfect, but if you have people who 
really care about it and are willing to force those issues 
through the bureaucracies it could work pretty darned well, and 
I just think that that is a start.
    Senator Allard. With this election, there was a lot of 
discussion about voting by members of the military, and I do 
not know whether you have given this any thought or not, but I 
was disturbed, I think as many members of this committee were 
disturbed about credible attempts to disqualify certain 
military votes, and most of these were due to hypertechnical 
kinds of reasons, but in the legal community they are real 
reasons, and I am wondering if you are going to give any 
thought about how it is that we can make sure that that problem 
does not get repeated again on military votes.
    Mr. Rumsfeld. Senator, I have discussed this with the 
President-elect, and thought a bit about it. As you suggest, it 
is complicated because of the role the States play, and not one 
State but 50 States. I do think it is an enormously 
discouraging thing for people serving overseas in the United 
States Armed Forces to read in the paper that because there may 
not be a postmark or some other issue, that their vote might 
not be counted.
    It is just not fair, it is not right, and we have to figure 
out ways to do it, and I quite agree with you that if confirmed 
that the Secretary of Defense should address the issue and put 
in place some people to think that through and figure out what 
kinds of recommendations might be made so that there is a high 
confidence that the men and women in the Armed Services in fact 
vote and have their votes counted.
    Senator Allard. I just do not know that anybody has ever 
really thought through just how those ballots may be handled, 
getting from the base or where there will not be a post office 
or maybe even a postmark getting them to their State where the 
individual is registered to vote, so I appreciate your answer 
on that.
    On emerging threats, I think your 1998 ballistic missile 
report threat, you indicate there is an emerging threat and it 
is maturing more rapidly, and do you still believe the threat 
is emerging and maturing more rapidly, and also what do you 
perceive as our greatest threats?
    Mr. Rumsfeld. Maturing more rapidly of course is relative. 
More rapidly than the international community at that time had 
anticipated, or had described. Our report, as you may recall, 
followed the 1995 NIE, the National Intelligence Estimate which 
Congress decided they wanted a second look at, so they 
empaneled the Ballistic Missile Threat Commission. We did take 
a look at it, and we came to a number of distinct disagreements 
with that National Intelligence Estimate.
    I do not think I would say it is currently evolving more 
rapidly than the intelligence community believes, because since 
our report we then followed it with an intelligence side letter 
to the international community, and Director Tenet empaneled 
the entire international community and we presented it, and 
they have been addressing the kinds of things that we 
suggested.
    My impression is that more recent NIEs have begun to take 
account of some of the suggestions made, and that I would 
think, if you dropped a plumb line through the international 
community today and asked where they are on this issue, I would 
think that they are probably a lot closer to where we were than 
they used to be.
    Senator Allard. I have not had a chance to completely 
review your Space Commission report, but from my briefings I am 
going to be, I think, pleased with its findings. One of the 
areas you talked about is vulnerability of our space assets, 
and I am wondering if you can comment about the vulnerability 
of our space assets and how you would manage that.
    Mr. Rumsfeld. Well, I have not had a chance to see the 
final report, either. I was asked to become the nominee and I 
had to resign from the commission, and the following days they 
have completed it and printed it and they are now in the 
process of briefing Members of the House and Senate and the 
executive branch on that report.
    Senator Warner. If I can interrupt, we are going to release 
it at 2:30, and I am going to absent myself to go over for a 
few minutes.
    Mr. Rumsfeld. Adm. Dave Jeremiah, Steve Cambone, the staff 
director, other members of the commission are going to be doing 
that, but one of the things that became fairly clear is that we 
have seen a significant growth in the use of space assets for 
all kinds of things, clearly from a military standpoint but 
also from a civil governmental standpoint as well as a civilian 
private sector standpoint, and as you end up with this greater 
degree of dependence on these assets you obviously become more 
vulnerable to interruptions of those capabilities.
    I forget what the number is, but something like 70 or 80 or 
90 percent of the pagers in the country were out for a period 
because of an interruption on a Galaxy satellite. We know that 
Russia or former Russian republics are selling, in effect, 
hand-held jammers that can jam satellite signals. We know that.
    There is an organization in England that makes and puts in 
space microsatellites that have a variety of capabilities for 
lots of countries. They do it for--China has a relationship 
with them, and many other countries do as well, and if you are 
as dependent as our country is on space, you are, by 
definition, vulnerable, more vulnerable than others, and it 
seemed to the commission, unanimously, I might say, that that 
calls for attention on the part of our country to see that we 
have the ability to preserve those assets and defend the assets 
in a way that we could have reasonable assurance that we are 
going to not be dramatically inhibited, for example, in 
presidential leadership during a pre-crisis buildup, that we 
are going to be able to communicate with our military forces in 
a way that is appropriate in a conflict, to say nothing of the 
fact that our economy is so dependent today that significant 
economic disruptions could occur, and I am not just referring 
to space assets and space systems. I mean, ground stations as 
well as these systems.
    Senator Allard. Mr. Chairman, my time has expired. Thank 
you.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank, you Mr. Chairman.
    Secretary Rumsfeld, good morning and welcome to the committee. I 
enjoyed our meeting last week and during the course of today's hearing, 
I will broach a few of the issues we discussed.
    I again look forward to hearing your views on the many important 
subjects facing America and the military, but I hope the presence of 
the media means that all of America will be introduced to you and your 
achievements for the country. Further, I always look forward to any 
opportunity when we have a chance to publicly discuss the many crucial 
issues facing America's national security and military service members.
    Mr. Secretary, as we all know, for the last several years you have 
been involved with numerous commissions and studies, most notably your 
work on the ``Commission to Assess the Ballistic Missile Threat to the 
United States'', and most recently the Space Commission. I carefully 
studied the missile threat report, found it detailed, thoughtful, well 
researched, and credible. I have been operating with it in my mind 
whenever this committee deals with the missile defense issue. A new 
administration is seen by many as our only chance for fixing a critical 
flaw in our defense--a lack of NMD. Many of us are breathing a sigh of 
relief that we might finally be entering a phase of concrete actions. 
Better yet--actions with concrete.
    Your other recent project, the Space Commission, is also of great 
interest to myself and many others in Colorado. Colorado has a close 
connection to military and civilian satellite launch and control. We 
are aware of the competing needs of civilian, military and 
intelligence. I don't want to get into the report too much for it is to 
be released today. While I do not have all the details of the report 
but from the briefing I received earlier, I am encouraged by the 
findings and the forward thinking recommendations. I hope we can 
continue to work together on these issues.
    Finally, I note that at the press conference announcing your 
nomination, President Elect Bush mentioned that one of his defense 
goals was to ``strengthen the bond of trust between the American 
president and those who wear our Nation's uniform.'' There has been a 
real degradation in that area. I hope to see this rapidly addressed. I 
will bring up this issue later in my questions.
    Mr. Secretary, I look forward to your second tenure in the 
Pentagon. I hope we have a productive hearing today and have already 
concluded you run a tight ship. I am looking forward to hearing what 
your ``Rumsfeld's Rules'' might be.

    Chairman Levin. Thank you very much. Senator Landrieu is 
next.
    Senator Landrieu. Thank you, Mr. Secretary. Congratulations 
on your nomination. I look forward to working with you through 
these hearings, and I just want to say that Senator Durbin's 
and Senator Fitzgerald's comments go a long way with me. They 
are a ringing endorsement, and my own personal knowledge of 
your good work.
    I just have a few questions. The first two have to deal 
with the nuclear policies of our Nation. In your opening 
statement, you made an excellent point about our need to invest 
more money and more resources in our defense. I could not agree 
with you more, and have a voting record to support that.
    We need to make sure our money is spent wisely and well, 
but the need to make new investments, to shore up our defenses 
and to modernize them I think are crucial, and so I want to 
commend you for that, and one of the ways that we will be able 
to do that, there are really only two ways to identify new 
moneys, or to redirect some of the moneys we are spending now 
in new ways to make that goal that you have stated actually 
come to pass, and of course one of the big cost drivers is our 
nuclear strategic defenses.
    Given that, and you are aware, because you served in this 
position before, that we are prohibited by law from falling 
below our START II levels, but we are coming upon several 
crucial and costly, and our underlying costly decision points, 
particularly regarding our Peacekeeper missile system, which 
the Defense Department has recommended that we move past, if 
you will.
    I believe that it would make sense for our Nation to 
establish a cost-effective and appropriate deterrent, 
independent of anything Russia may do, because they have 
already provisionally ratified the levels indicated by START 
II, but it does not comport with our law, and so my question 
is, do you believe that we need to hold to some artificially 
mandated level of nuclear weapons, or in light of our great 
need to find resources within our budget as well as add to 
them, that there is some potential here for not only strategic 
thinking but some good cost savings could be applied in other 
ways, and would you be willing to explore or to comment today 
about some of your thoughts regarding that?
    Mr. Rumsfeld. Well, I certainly agree with you, we are 
going to have to do both. We are going to have to find new 
dollars in nontrivial amounts, and we also have to see that the 
defense establishment functions in as cost-effective a way as 
is humanly possible, and that we find savings, and third, we 
are going to have to undoubtedly not do some things we have 
been doing, because the nature of our world has changed, and we 
are going to do some other things, and it certainly is at least 
logical, although I cannot tell you what that is, it is logical 
that we ought to be able to not keep on doing some of the 
things we have been doing.
    With respect to the numbers of weapons, it is not a subject 
that I have engaged since the announcement a week or so ago. 
The President-elect has commented on the subject of numbers of 
weapons. We know that the Russian systems are very likely to be 
declining in some numbers, apart from negotiations, apart from 
agreements, simply because of their economic circumstance.
    We also know that Russia is not the only nation in the 
world that one needs to be attentive to. The Chinese are 
increasing their--they have a very modest nuclear capability at 
the present time, but they are increasing their budget in 
double digits. They do have at least a publicly pronounced 
desire to be a factor in strategic nuclear weaponry.
    I do not know whether we can reduce or not. I suspect that 
that will be part of the review, and in what numbers. I am 
afraid that the likelihood is that any reduction--there is a 
minimum below which you can go and maintain the kind of target 
list that rational people think is appropriate. My guess is 
that there are very likely not a lot of savings in that, but I 
do not know that.
    Senator Landrieu. Well, I look forward to working with you 
on that, I think to be open to evaluate these questions from 
the bottom up, because it brings me actually to my next point, 
which is our targeting plan, which is our single integrated 
operational plan, our SIOP plan which actually lays out the 
nuclear targets and is one of the, for obvious reasons one of 
the most carefully guarded secrets of our Nation.
    I raise this issue to you today because one of our most 
distinguished departing Members, Senator Bob Kerrey, who served 
for many years on the Intelligence Committee, has been very 
frustrated publicly and privately. Many times publicly on the 
floor of the Senate and other places he has expressed his great 
concern, and I wanted to express it for him as if he were here 
today. This particular plan of targeting our nuclear weapons 
has been unavailable to be reviewed by the leadership of our 
committee, either Republican or Democrat, or even to the 
highest level of congressional Intelligence Committee members.
    While it is claimed under our law or rules that he has to 
have reason to know, he, as the highest ranking member, was not 
given the information in order to make rational decisions, 
exactly what you said about not only what can we afford, but 
what is an effective deterrent, what do we need to do to 
maintain the safety of our citizens.
    So my question would be, if you wanted to make a comment 
about it today, but at least could you assure this committee 
that you would be willing to work with the appropriate Members 
of Congress, and not all Members would be on an equal footing 
here, but the leadership of our committee and the Intelligence 
Committee members particularly, to jointly review that, because 
it has a direct bearing on the strategic posture that we either 
take or not take, and is driven by the target.
    So could you make a comment, please, for the record?
    Mr. Rumsfeld. Yes. For the record, those are decisions that 
I think are the President's, and it is not for me to opine as 
to what extent, if at all, the current procedures ought to be 
changed.
    I do know that the U.S. plans are reviewed, admittedly by a 
very small number of people in the executive branch, the 
National command authorities. They are reviewed regularly. They 
are changed as circumstances change in the world. As you 
suggested, they are highly classified, and that is about all I 
can say.
    Senator Landrieu. My third question is, again commenting on 
your opening statement, on your phrase that you would like to 
try to help us develop weapons systems, I think--I do not know 
the exact term you used, but taken off the shelf as opposed to 
the more traditional ways we have developed, to try to get 
weapons systems more quickly and more cost-effectively. I would 
like to commend our current Under Secretary, Rudy de Leon, for 
suggesting that we apply that same principle to the Reserve 
units in trying to combat terrorism in cyber space, to actually 
be able to access the brain power of the American people by 
developing more strategic smart Reserve units instead of 
developing that intelligence within the Defense Department to 
actually, if you would, Mr. Secretary, be able to pull it off 
the shelf.
    So have you given any thought to perhaps strengthening our 
Reserves in this way, that we could get the best and the 
brightest minds in the United States to apply their great 
ability and intellect to help us to fight this new front in a 
smart, cost-effective way for the American people, and one that 
I think would tend to be more successful, perhaps, than the old 
ways that we are used to doing? Have you been briefed much 
about this, or know much about what I am suggesting?
    Mr. Rumsfeld. I have not been briefed on it, and it is not 
a subject I have engaged personally. There is no question but 
that cyber attacks and information warfare are an exceedingly 
important subject for the country. They are important for the 
private sector. They are important for the Government. They are 
certainly important for the military. I had not addressed the 
subject as to what role the Reserves and the Guard might play 
in that, but it certainly is worth exploring.
    Senator Landrieu. My time has expired. I would just urge 
you to think about the strategy to solicit service from a core 
of very talented, well-skilled individuals to bring to bear the 
new abilities or talents we are going to need to fight the 
threats of the future.
    Thank you very much.
    Chairman Levin. Thank you, Senator Landrieu.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. Before I ask a 
question, I wonder where we are on the possibility of moving 
this nomination? I think it would be well if we have as much 
support as it appears we have today for this extraordinary 
nominee I think the world would well receive the fact that we 
could promptly confirm him. Do you have any thoughts about how 
we could move this nomination, if there are no objections, as 
there appear to be? I think it would help the President-elect 
and his team to get started as early as possible.
    Chairman Levin. Technically, I think the nomination has to 
be submitted by the new President. I think the first thing he 
usually does after being sworn in is to sign a number of 
nomination sheets and nominate his Cabinet officers. The 
nomination then has to be received technically by the Senate. 
Then, I believe it will be Chairman Warner's plan at that time, 
probably the same day, but I do not want to speak for him, that 
we try to meet even on Inauguration Day, if possible, to act on 
and confirm, if we are ready at that point to act on and 
confirm.
    There is significant paperwork which we must go through. 
The nominee is working very hard on it with all of us. It has 
to be finished, too. I hope we can complete the hearing today, 
but there is no guarantee of that. It depends upon how many 
questions need to be asked that we have not had a chance to 
ask. That is our goal. I agree with your point, in any event 
even though it is not technically possible to even receive a 
nomination until Inauguration Day, or act on it. We will act 
promptly after we are legally able to act on this nomination, 
because it does have, indeed, broad bipartisan support.
    Senator Sessions. Thank you, Mr. Chairman. I really believe 
we should move on that, and there might be some uncertainty in 
the world among those who--we had a prolonged election process, 
and I think it might be good for stability if we could move as 
promptly as possible.
    I remember, when I was back in college, at Huntington 
College where I attended, they introduced the old president as 
a president proven and the new one as a president challenged, 
and you are both a proven Secretary of Defense and a challenged 
Secretary of Defense, so we are delighted to have you here. I 
think your testimony has been superb. It is wise and thoughtful 
and strong, and I know you know there are some real challenges 
out there that have to be met.
    One thing I would say is that Senator Lieberman's comments 
really went to the heart of where we are, in my opinion. I 
think this Nation has a serious problem with our defense 
funding and structure, that in the past decade we have failed 
to maintain adequate funding streams. We are paying salaries 
and the like and that kind of thing, but really, recapitalizing 
the military has not occurred as it should, and I asked 
Secretary Cohen, your predecessor--who by the way was 
extraordinarily cooperative with this Senate.
    I was a new member of this committee and he just did a 
great job of being forthcoming and helpful, and I would ask you 
to do the same, and want to compliment him on the work that he 
did, but he said this in answer to a question of mine. He said, 
as I indicated before, Senator Sessions, ever since the height 
of the Cold War we have seen a tremendous decline in defense 
spending.
    This was last year, and many on this committee and 
throughout this body were urging a peace dividend, and we have 
been enjoying the fruits of that peace dividend, but it has 
come at the cost of relying on what President Reagan did in the 
1980s as far as the buildup. We have been living off that, and 
now we are at the point where we have to replace it.
    Do you understand what he is saying, and would you tend to 
agree with that?
    Mr. Rumsfeld. I do, indeed. It is a surprise to me, when 
you think about it, but when I was Secretary of Defense I went 
to the roll-out for the F-16 and made the decision on the M-1 
tank and the B-1 bomber, and that was a long time ago.
    Senator Sessions. What we have is the question of how much 
needs to be spent. It is my understanding that the number of 
$45 billion that President Bush was reported to have estimated 
that he would have to spend in addition was based on several 
programs he intended to initiate, did not represent his full 
commitment to spending more for defense, but I think Senator 
Lieberman rightly suggests it is going to take a lot more than 
that and a lot more than the $100 billion over 10 years that 
was--and I think, Mr. Rumsfeld, that it--and I will ask you to 
respond to it, it is going to be your duty, and I think you 
have the credibility and the competence to evaluate this 
Defense Department to analyze the threats we are facing in the 
world, to comprehend what can be done technologically and how 
much money can be saved wherever it can be saved, and then I 
think it will be your duty to come back to this committee and 
use all the credibility that you have to sell this committee 
and this Nation on the amount of funding we are going to need 
to maintain the strength of the United States in the 21st 
century.
    How would you respond to that?
    Mr. Rumsfeld. First, your understanding of President-elect 
Bush's comments about budget are exactly mine, that he 
identified some particular things he wanted to see funded. He 
priced them, and he mentioned the price tag. I do not believe 
that he suggested that that was the totality of what he had in 
mind, because he was asked for a defense review and promised 
that as well, and that is something that of course has not been 
done, and until that has been done, it is clearly not possible 
to come up with the numbers.
    I think second, with respect to the numbers, I do not know 
what the number is, but I have an impression that goes not to 
the total number over the 5-year period, but the impression is 
that we need some money up-front, and we may very well have to 
come back with a supplemental or something that would indicate 
the needs that exist now so that--because there have been 
things that have been pushed off, as has been mentioned here, 
for example, the shipbuilding budget and some other things, 
science and technology and others that have been mentioned.
    Senator Sessions. There has been a lot put off and, in 
fact, we had testimony from one official, one General on 
research and development. He used the phrase, we are eating our 
seed corn. I am now looking at a National Association for the 
Advancement of Science survey, historical table on the amount 
of money spent for research and development. Since 1989 in real 
dollars, not inflated dollars, in actual dollars, the amount of 
DOD research has dropped 20 percent, while other research in 
nondefense departments and agencies are up 50 percent. Senator 
Bingaman raised that point.
    I really do believe that we got squeezed to pay for lights, 
to pay for salaries. We were cutting, eating our seed corn. We 
were cutting back on things that are going to come back to 
haunt us and are going to cost us more money today than it 
would have if we had started on a 6 or 8-year program of 
research and development.
    One more thing and I will give up this questioning. One 
expert has said that the post-Cold War, the references to the 
post-Cold War foreign policy are really a statement, an 
admission that we have not developed a post-Cold War foreign 
policy. Is it your opinion, briefly, that we do need to develop 
a more comprehensive foreign policy in this post-Cold War 
environment that the American people and this Congress can 
rally behind?
    Mr. Rumsfeld. I certainly agree, but by agreeing I do not 
want to suggest that it is easy. There are some who look at our 
current period and characterize it as a transition out of the 
Cold War into something that is still ahead. There are others 
who suggest that possibly history might indicate that this is 
it, that we are not transitioning to something else, but what 
we are in now is what we will be in for a period, and that if 
that is true, and I am certainly not one who can suggest that I 
know the answer, but if it is true, it puts a much greater 
urgency on fashioning policies and standards and some flags we 
can plant down ahead so that we as a country can point 
directionally and know how to arrange ourselves to function and 
live with a maximum degree of safety and stability during that 
period.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Byrd.
    Senator Byrd. Mr. Secretary, you have been around this 
track before, and I appreciate your presence here today, and I 
compliment the President-elect on nominating you. Certainly it 
is my present intention to support you.
    My time is brief, and so I will get right into a question. 
The Department of Defense continues to confront pervasive and 
complex management problems due to its inadequate financial 
management systems. This can greatly diminish the efficiency of 
the military services operations.
    Since 1995, the DOD's financial management has been on the 
General Accounting Office's list of high-risk areas vulnerable 
to waste, fraud, abuse, and mismanagement. While the Department 
has made progress in a number of areas of its financial 
management operations, no major part of DOD's operations has 
yet been able to pass the test of an independent financial 
audit.
    The Chief Financial Officers' Act of 1990, as amended by 
the Federal Financial Management Act of 1994 requires the 
Department of Defense to prepare annual audited financial 
statements. Nevertheless, 10 years after the enactment of the 
CFO Act of 1990, the Department of Defense has yet to receive a 
clean audit opinion on its financial statements.
    A recent article in the Los Angeles Times, written by a 
retired vice admiral and a civilian employee in the Office of 
the Secretary of Defense, accused the Secretary of Defense of 
being unable to account for the funds that Congress 
appropriates to it. The authors wrote, and I quote in part, 
quote, the Pentagon's books are in such utter disarray that no 
one knows what America's military actually owns or spends. That 
is the close of my extract.
    The thrust of this Los Angeles Times article is backed up 
by the DOD's own Inspector General's financial audit for fiscal 
year 1999. I have a copy of that here in my hand. I assume you 
have seen it.
    Mr. Rumsfeld. I have not. I cannot even say I look forward 
to seeing it. [Laughter.]
    Senator Byrd. Well, I will look forward to hearing what you 
have to say about it after you have seen it. [Laughter.]
    That audit report found that out of $7.6 trillion in 
Department-level accounting interest, $2.3 trillion in entries 
either did not contain adequate documentation or were 
improperly reconciled, or were made to force buyer and seller 
data to agree.
    This DOD IG report is very disturbing. Last year, according 
to the General Accounting Office, the Pentagon reported that it 
did not expect to have the necessary assistance in place to be 
able to prepare financial statements for 3 more years. That was 
last year. We are now advised that the Pentagon is currently 
telling the Office of Management and Budget that it will take 
them until the year 2005 or 2006.
    Now, I also note in the Washington Post of January 9, 2001, 
this sentence, which I extract from an article titled, ``Bush 
Talks Defense with Key Members of Congress.'' Here is the 
sentence: The chiefs of the Armed Services have said that they 
need a budget increase of more than $50 billion a year to 
modernize their forces. That figure dwarfs the $4.5 billion in 
added defense spending proposed by Bush during the campaign.
    Now, if the Pentagon cannot account for what it is doing 
this year, how can it hope to improve its operations next year? 
As Chairman of the Appropriations Committee, thank God, now for 
17 days----[Laughter.]
    I seriously question an increase in the Pentagon budget, 
and in the face of the Department's recent Inspector General's 
report how can we seriously consider a $50 billion increase in 
the defense budget when DOD's own auditors say the Department 
cannot account for $2.3 trillion in transactions in 1 year 
alone?
    Now, $2.3 trillion I would readily assume is a large amount 
of money. According to my old style math, there have been 1 
billion minutes, give or take a little, it will not make much 
difference, since Jesus Christ was born, 1 billion minutes, and 
according to that same old math, $2.3 trillion, which the 
Department cannot account for in 1 year alone, would amount to 
$2,300 per minute for every minute since Jesus Christ was born. 
Now perhaps we can begin to understand the magnitude of $2.3 
trillion.
    So why is this happening? Of course, I would not expect you 
to be able to answer that question. The state of affairs did 
not occur on your watch, but you are inheriting it. Now, my 
question to you is, Mr. Secretary, what do you plan to do about 
this?
    Mr. Rumsfeld. Decline the nomination. [Laughter.]
    Chairman Levin. We will stand adjourned in that case. 
[Laughter.]
    Mr. Rumsfeld. Senator, I have heard some of that and read 
some of that, that the Department is not capable of auditing 
its books. It is--I was going to say, terrifying. It is such a 
monumental task. I have met with two former officials of the 
Pentagon who served in the budget and control areas, and I have 
mused over the fact that I have read some of these things and 
asked what they thought.
    One insight that I got was that to a certain extent the 
financial systems have been fashioned and designed to report on 
requirements that they receive from various organizations and 
they have not been fashioned and designed for financial 
management the way you would in a corporation. I do not know 
whether that is a useful insight or not, but it is something 
that is rattling around in my head, and certainly something 
that I think--I doubt, to be honest, that people inside the 
Department are going to be capable of sorting this out.
    I have a feeling it is going to take some folks from 
outside to come in and look at this and put in place a process 
that over a period--and I regret to say, but I have seen how 
long things take. I think it is going to take a period of years 
to sort it out, and it will probably take the cooperation of 
Congress to try to get the system so that you can actually 
manage the financial aspects of that institution, rather than 
simply report on things that have happened imperfectly.
    That is not a satisfactory answer, but I hear you. I 
recognize the problem and, if it is not solved, I hope at least 
that when I leave, if I am confirmed, that it will be better 
than it was when I came in.
    Senator Byrd. My time is up, but Mr. Secretary, I have 
every confidence in you. I think I have the duty to request and 
to urge, and I am sure that my colleagues on both sides here 
join me, and I am sure as well that you do, because you have 
indicated the enormity of the task, and I think this may have 
come, perhaps, not as a surprise to you, but you have not seen 
it. Will you pledge to make balancing the Pentagon's books a 
topmost priority? The simple answer is yes, but I would like to 
hear your answer.
    Mr. Rumsfeld. Well, I do not know that I can assure you it 
will be the topmost priority, but it will certainly be among 
the top priorities. It simply must be done for the National 
security interests of the country, as well as from the 
standpoint of the taxpayers of the country.
    Senator Byrd. Absolutely, and let me close by saying that, 
as an appropriator, I cannot have much confidence in the budget 
request when we have such a track record as we see here, and 
the Joint Chiefs come up here and ask for $50 billion, even 
$4.5 billion more, whatever it is. I, as an appropriator, and I 
would think every member of the Appropriations Committee, would 
have to look with a jaundiced eye, perhaps not on some specific 
items, with which they are perhaps more acquainted, but with 
the overall--it is a terrible record, and it is preposterous 
that the Defense Department does not know what has happened to 
this money.
    But I thank you for your testimony, and I hope you will do 
everything you can to set this thing in order and put the 
Pentagon's house in order in this regard.
    Mr. Rumsfeld. Thank you, sir.
    Chairman Levin. Thank you, Senator Byrd. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Rumsfeld, I 
want to start by echoing the praise of my colleagues in 
congratulating you on your appointment, which I hope very much 
that you will not decline, and to also commend the President-
elect for making such an outstanding choice.
    I want to start with a comment before going to a couple of 
other issues, and I want to follow up with the exchange you had 
with Senator Kennedy, in that I share both yours and Senator 
Kennedy's concerns about the current shipbuilding rates. They 
do not support the goal of a 300-ship naval fleet, as 
identified by the last QDR and the Clinton administration's 
defense budgets have been gradually taking the Navy not toward 
a 300-ship Navy but ultimately toward a considerably smaller 
fleet.
    To make the challenge confronting the new administration 
and the new Congress even more stark, even a 300-ship Navy has 
been increasingly recognized as inadequate to meet the 
increased operational and deployment requirements that we face. 
In addition, recent press reports indicate that the DD-21, the 
Navy's revolutionary new destroyer program, may be among the 
Pentagon programs most at risk of procurement budget cuts.
    Now, I know from our brief conversation that you have not 
yet had an opportunity to review specific procurement programs, 
but I do want to express my concern about the direction that 
shipbuilding is heading, or has been heading in, and seek your 
commitment to reverse that direction, and to look to increasing 
our shipbuilding budget. I believe you gave that kind of 
commitment to Senator Kennedy in your earlier exchange, is that 
correct?
    Mr. Rumsfeld. Indeed, I share your interest and concern, 
and if we are each year building fewer ships than are necessary 
to maintain the kind of Navy that this country needs, then we 
are damaging ourselves, and we are damaging our national 
security.
    Senator Collins. Thank you. I look forward to working with 
you closely in that area.
    Last month, Mr. Rumsfeld, I accompanied Secretary of 
Defense Bill Cohen on a holiday trip to visit our servicemen 
and women in Kosovo and Bosnia. We brought with us entertainers 
such as the Dallas Cowboy cheerleaders, which I will readily 
concede the servicemen were far more interested in talking to 
than they were in talking to United States Senators and Members 
of Congress.
    Nevertheless, I did have the opportunity to speak with 
members of our active duty components, as well as reservists 
and members of the National Guard who were stationed in Bosnia 
and Kosovo, and while morale generally appeared to be high, I 
nevertheless heard many accounts of the effects of the 
increased operational tempo on the lives of those who are 
serving, their families and, in the case of reservists and 
guardsmen, their employers.
    I was concerned about what I heard, because of the 
implications for retaining and recruiting men and women to 
serve in the military. For example, I spoke to one young 
Reservist from my home State who had returned to his family 
after an assignment in the Middle East, only to be called on 
again to be sent to the Balkans.
    In addition, a young naval officer from my home State 
recently resigned after 12 years in the Navy because continuous 
9-month periods of sea duty proved too great a burden on his 
growing family.
    I am told that the Army is currently considering reducing 
its overseas assignments to periods of 120-days, and that other 
services, including the Guard and the Reserves, may adopt 
similar models. I realize that this issue really ties to the 
underlying issue of peacekeeping forces and these daunting and 
protracted missions we have undertaken, but I wonder if you 
support looking at ways that we can ease the burden on our 
young men and women who are serving so far from home for such 
protracted periods.
    Mr. Rumsfeld. Yes, indeed. In any organization that does 
not use conscription or force to have people work there you 
have to fashion the sort of incentives that will enable you to 
attract and retain the people you need to run that activity in 
an efficient and cost-effective way. I do not know what the 
number is, but I think it was Senator McCain who mentioned the 
attrition rates with respect to our young captains. I think it 
is something like 12, 13, 14 percent.
    My goodness. That has to tell anybody that we are doing 
something wrong. We simply cannot have that kind of churning 
when you train and develop and have this fine talent and then 
lose it. It costs so much to bring people through the intake, 
bring them along, get them experience, train them, and then you 
lose them, and so we have to arrange ourselves so that we have 
a high confidence that we can attract and retain the people we 
need, and that is a mixture of things.
    It is a mixture of how they feel about their Government, 
and how they feel about the defense establishment. It is partly 
how their families are functioning and whether or not they feel 
that they are able to do what they need to do for their 
families. As you suggested, the operations tempo can be a 
difficult thing, time away from families. It is pay, it is 
health, it is education, it is a whole host of things, 
opportunity, and it is also feeling that the country cares and 
appreciates what they have done and what they are doing.
    Senator Collins. You are absolutely right about that, and I 
did in my discussions with the young men and women whom I met--
I was so impressed with their pride and their professionalism, 
their dedication to their jobs, and many of them want to stay 
in the service, or they want to continue in the Guard, and we 
need to figure out ways to deal with the very real family 
concerns they have, and I appreciate the fact that you 
obviously acknowledge that and are committed to looking at 
that.
    I want to raise quickly just one final issue. The Defense 
Department has for years tried to take steps to reduce the 
physical and electronic security, or the vulnerability of its 
communications satellites, but in recent conflicts such as 
Kosovo, and even in peacetime, it is my understanding that the 
military has come to depend more and more heavily upon 
commercial communications satellites.
    It seems to me the Defense Department needs a stronger 
effort to work with the private sector and other appropriate 
parties to improve the safety, not just of our military 
satellite communication links, but of civilian ones as well, 
and I would be interested in knowing whether this is a priority 
area for you and whether you have any plans in this regard.
    Mr. Rumsfeld. It is an area of interest to me. I am 
certainly not an expert. We do know that commercial 
capabilities in this area have for the most part no hardening 
or no ability to survive mischief and attacks. We also know 
that properly, in my view, the United States Government, 
including the military, are using more and more and should use 
more and more civilian capabilities for communications, for 
imagery, for a variety of things. It is efficient. They are 
good at it.
    On the other hand, we have to be certain that we have 
secure systems so that we are not blinded at critical times. It 
is an area that I do intend to interest myself in, and I thank 
you for bringing it up.
    Senator Collins. Thank you, Mr. Rumsfeld. Thank you, Mr. 
Chairman.
    Chairman Levin. Senator Collins, thank you.
    Senator Akaka.
    Senator Byrd. Mr. Chairman, before the Senator responds, 
may I ask consent that the audit report to which I referred in 
my questions be included in the record, report number D-2000-
179, dated August 18, 2000?
    Chairman Levin. It will be made a part of the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Levin. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Chairman, I ask my opening statement be placed in the 
record.
    Chairman Levin. It will be.
    [The prepared statement of Senator Akaka follows:]
             Prepared Statement by Senator Daniel K. Akaka
    Thank you, Mr. Chairman.
    I am honored to join the committee for today's hearing. I want to 
thank you, Mr. Chairman, for providing me with the opportunity to 
participate today.
    I look forward to working with you and Senator Warner and the other 
distinguished members on this committee to address issues involving our 
National Security and our Armed Forces, beginning with the confirmation 
hearing for the Secretary of Defense.
    The Department of Defense has a substantial impact on my home State 
of Hawaii. We proudly have military installations from every Armed 
Service branch in the State of Hawaii.
    We have traditionally had a very good relationship with the United 
States military, and I look forward to continuing to work with the 
Department of Defense in fostering these relationships.
    I am familiar with Mr. Rumsfeld's experience, accomplishments and 
impressive record, including his service as the chair of the U.S. 
Ballistic Missile Threat Commission.
    I look forward to hearing more from Mr. Rumsfeld on his vision for 
our Nation's security and military preparedness, and again, I thank my 
colleagues on the committee for welcoming me to participate today.

    Senator Akaka. Mr. Chairman, we are sitting in this hearing 
with a man who has had tremendous experience, and has had lots 
of confidence given by others, and is now being considered for 
Defense Secretary. After reading your bio, I think that this is 
the kind of person we would expect much from because of your 
experience. I think, talking about deals, I think we have a 
good deal in hand with you.
    In the Pacific and in other areas, we have had some issues, 
and besides issues of appropriate funding, issues of the 
criteria for the deployment of U.S. troops, and necessary 
situations. There have been issues in the community regarding 
encroachment, including the importance of dealing with 
communities surrounding military installations and training 
ranges, and the environmental constraints on training ranges.
    I must tell you that in Hawaii we have had over the years, 
as long as I can remember, very, very good relationships with 
the military. We work well together. We live well together. We 
respect the leadership of the military, and they have helped us 
out in many ways.
    Now, they have really tried to deal with our communities as 
well, so encroachment is an issue. I understand you intend to 
deal with these issues in a more comprehensive and systematic 
fashion, and that you are open to work with all parties 
involved, so my question to you is, how do you intend to 
implement a more comprehensive approach to these issues?
    Mr. Rumsfeld. Well, I wish I had an answer that represented 
a solution to the problems. As you properly point out, not just 
in the United States, including Puerto Rico, and Japan, and in 
other parts of the world where the United States Armed Forces 
has a presence there are pressures and difficulties that run to 
this issue that is characterized as encroachment.
    I do not know the way the encroachment goes, whether the 
base is encroaching or the community is encroaching on the 
base, which happens to be historically the case in most 
instances, but it is a problem that is real, it is serious. The 
United States needs bases, it needs ranges, it needs test 
ranges, and it cannot provide the training and the testing that 
people need before they go into battle unless those kinds of 
facilities are available, and each year that goes by there are 
greater and greater pressures on them.
    Admittedly, I suspect, and I do not know enough to say, but 
I suspect that, as with many things, there are ways that 
technology can assist us in these areas that will enable the 
military to do things that they need to do that they used to do 
physically that they will be able to do with computers and 
various other types of technologies. Certainly that is true 
with all kinds of simulations and what-have-you, but you cannot 
do everything, and you do need to do live fire for people 
before they go into battle to have some sense of what that is 
like.
    I am afraid it is not so much a problem as a fact of our 
times that, not to be solved, but to be coped with over a 
period of time. I think it is going to be a constant pressure 
on the defense establishment, and all we can do is our best.
    Senator Akaka. I was glad to hear your commitment to 
research and development, and how you feel about not standing 
still, or static, but in order to move ahead we must move into 
areas like that.
    You also mentioned in your response to Senator Kennedy the 
book on the Corona satellite program. I feel that space and the 
military, of course, can work so much together. What role, if 
any, do you see for the new commercial satellite imaging 
industry to supplement our classified systems?
    Mr. Rumsfeld. My impression is that the United States 
Government, including the military, will and should be 
increasingly using commercially available capabilities, 
satellite capabilities. Whether it is communications or 
imagery, there are a great many instances when you could take 
available off-the-shelf products and services of the type and 
use them to great effect.
    Senator Akaka. I know you are well-versed in missile 
defense. In your response to the committee's advance policy 
questions you state, before deploying a national defense, 
missile defense, a factor to be considered is, and I quote, 
``the urgency of the ballistic missile threat to the United 
States.'' How do you assess the urgency of that threat now, and 
has it changed since the Rumsfeld Commission report?
    Mr. Rumsfeld. The Ballistic Missile Threat Commission I 
think have the subject right, and I think that has been agreed 
to by both Secretary Cohen and by others. What has happened in 
the intervening 2 years is that time has passed. Proliferation 
has continued. People have advanced in their development 
programs of missiles and weapons of mass destruction.
    I do not believe it possible to stop the proliferation of 
things we do not want proliferated. I think we ought to try, 
and we ought to work hard at it, but the reality is today that 
in this relaxed environment, and so much available on the 
Internet, and so many people willing to sell almost anything 
for a price, that we have to learn to live in that world, and 
we are capable of living in that world. There is no question 
but that we can do it, and so I think that time passes, and 
capabilities grow.
    Senator Akaka. Thank you very much. My time is up. I just 
want you to know that you have my support.
    Mr. Rumsfeld. Thank you, sir.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman. I first want to 
say that I am honored to serve with all of the other people on 
this committee, this esteemed Senate Armed Services Committee. 
It has been a promise I made to my constituents, and a desire 
of mine since coming to the Senate 2 years ago, to serve on 
this great committee, and I am very happy to be here.
    Second, Secretary Rumsfeld, welcome. It is good to see you. 
Assuming you are confirmed as the next Secretary of Defense, I 
am looking forward to working with you and your Department of 
Defense.
    Of course, the United States has the strongest military in 
the world. There is no arguing that fact. However, our biggest 
challenge may be to keep it strong, and to redefine it in this 
new century.
    It has been said that our military is stressed, 
overdeployed, and underfunded. Many talk of the last 10 years 
as the decade of decline for our military. I hope you find it 
not to be true.
    I look forward to this committee and Congress working with 
you to take on the tough issues regarding missile defense, the 
readiness of our military, particularly recruitment and 
retention, and the overall wellbeing and safety of our 
citizens, soldiers, and Nation.
    Over the past 8 years, I have watched generals and officers 
come before this committee and testify about the readiness and 
overall strength of the military. Time and facts have proven 
that they were either ill-informed or not giving Congress the 
full picture as to what really was happening, for whatever 
reasons, with our military.
    I simply ask you that you urge those under your watch to 
tell us the truth, the good, the bad, and sometimes the ugly, 
for only with the truth can we help to shape a military through 
policy and funding that is strong and ready to protect this 
Nation with peace through strength throughout the world.
    Now, I am looking forward to working with you. As I stated, 
over the last 8 years many generals have testified before this 
committee regarding the overall readiness, strength, and 
quality of our military. Time and facts have proven the 
generals were either ill-informed or not fully up-front with 
the committee, and things turned out worse than they had 
testified. Therefore, we in Congress made decisions about 
funding and policy based on the words of those generals. What 
will you do to make sure that this does not happen again under 
your watch?
    Mr. Rumsfeld. Well, I suppose for one thing, if I find that 
people are telling Congress something that is not so, you will 
not find them back up here telling Congress anything.
    Senator Bunning. We can count on that?
    Mr. Rumsfeld. Yes, sir.
    Senator Bunning. Senator Allard talked about this, but I 
think it needs to be reiterated, about the military ballots, 
particularly voting by our soldiers on bases. We know that 
there was a proposal to not allow our military to vote on 
bases, and Congress stopped that and allowed it to happen for 
one more year.
    I would like to ask you the question if you think that is 
the right or wrong thing to do, that we continue to extend the 
privilege to our military to vote on base?
    Mr. Rumsfeld. I do not know enough about it to answer. I am 
not an attorney. I do not know the extent to which State law 
governs, and I am simply not current, and I should be, and I 
will get current.
    Senator Bunning. Can you give me a general idea about your 
thinking about military people voting on bases, if it is legal?
    Mr. Rumsfeld. If it is legal, sure. I just do not know 
enough about the legalities, but I think that in our country we 
like to have people participate in the elections of our 
country, and certainly people who are serving in the Armed 
Services ought to be treated at least equally in terms of 
having an opportunity to vote.
    To the extent the defense establishment can find ways to 
facilitate the ease of that voting, I think we ought to try to 
do that, and to the extent we cannot because of legalities, I 
think it is perfectly proper to recommend to other entities, 
whether it is the White House or State and local governments, 
that this is our view and we would hope that they would take 
steps to provide so that men and women of the Armed Forces can, 
in fact, vote.
    Senator Bunning. This is a more localized question. This is 
about Fort Knox, which is a training and doctrine post, and the 
U.S. Army Recruiting Command is located there as well. When 
initial entry trainees come to Recruiting Command at Fort Knox 
they see 50-year-old barracks that are run down and literally 
patched together. Fort Knox has the oldest entry training 
barracks in the Army, with no barracks being built since before 
the Korean War.
    Despite that fact, Knox has been absent on TRADOC's list of 
recommended posts to receive new training barracks or a 
Starbase complex which integrates barracks, classrooms, and 
dining facilities and other soldier components. How will you go 
about assessing the condition of trainee barracks in 
recommending new construction of training barracks complexes 
for the Army?
    Mr. Rumsfeld. Well, I suppose the first thing to do would 
be to try and see if we can find the best possible people to 
serve in the posts of leadership in the Army that share the 
concern you have expressed about the circumstances of these 
barracks. That is a part of the broader question we were 
talking about earlier.
    This establishment will not function if we do not have 
talented people, and talented people are simply not going to 
accept an environment for themselves and their families and a 
circumstance that drives them away from the military. We need 
people who we can attract and retain, and who are proud to be 
there and available to be there.
    Senator Bunning. My last question, I read in your answers 
to the committee policy questions that you cannot fully give 
your opinion on whether you do or do not support another round 
of base closures because you are awaiting the DOD's next 
defense review. I have been seeking answers as to whether or 
not the last round of BRAC has saved money, or whether or not 
we have reduced our strength and readiness. I have never 
received any real answers with numbers either way.
    We all know the policies of BRAC, but I hope in your tenure 
as Secretary of Defense you can illustrate to us the realities 
and simple facts as to how past base closures and possible 
future ones have and will affect the taxpayers and the 
military, because no one has ever shown me actual numbers on 
the actual savings of the last BRAC, so before I ever look at 
anything new I want to see the old.
    Mr. Rumsfeld. Well, I am sure that there must be data. My 
general impression on the subject is that there is no question 
but that savings result from adjusting base structures to fit 
force structures. There is also no question but that they tend 
not to occur in the first or second year. They tend to come out 
over a period of time, so there is a cost factor. There is also 
a factor of military efficiency, and both benefit, the former 
being somewhat more easy to quantify than the latter.
    Senator Bunning. Thank you very much.
    Chairman Levin. Thank you, Senator Bunning.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. I welcome this 
opportunity to appear at today's confirmation hearing, even 
though my membership on the committee is not fully official, 
and should I serve on the committee I would be honored to be a 
part, and I look forward to it.
    I have been tremendously impressed, Mr. Rumsfeld, with your 
knowledge of the whole subject of national defense, your 
concern about readiness, your concern about budget realities, 
the external and internal security risks, and those 
unpredictable circumstances which are always there, and at this 
point in time virtually every question that could be asked 
seems as though it has been asked, and I do not want to be 
redundant, but there are a couple of questions that I would 
like to ask you.
    First of all, I think it was Senator Cleland who mentioned 
that defense does not poll very high among the public. Maybe 
that is because the public seems to be falsely secure when we 
are not. There are different kinds of threats today, as you 
have indicated, and there are limited resources to deal with 
those threats, so my first question is, do you have some plans 
that would engage and raise the public awareness and interest 
in the importance of the kind of defense we need to provide for 
today's world to get more resources and more money to be 
supported for national defense?
    It is always a challenge when there are limited resources 
and seem to be unlimited demands in all kinds of areas, and I 
wonder if you do have some specific plans to make the public 
far more aware of the need for these increased resources.
    The second question is, it has been often said that someone 
who takes on a new challenge can bring to it one big idea, and 
while you have been very generous with your thoughts about all 
of the realities that we are dealing with and what you propose 
to do, to the extent that you know at the present time, I would 
like to ask, do you have one big idea, and if you do, what is 
it? You can choose which order you prefer to respond.
    Mr. Rumsfeld. Well, let me just make a comment on the first 
point you have posed while I think about the second. With 
respect to the first, I do not think there is any one person 
who is going to help our country and, indeed, our allies as 
well fully understand what needs to be done and why. It is a 
task that takes a lot of people, multiple centers of leadership 
in Europe and Asia and in this Congress, in the executive 
branch.
    I give President-elect Bush high marks on the 
pronouncements he has made with respect to national defense, 
and I think that that is a good start. That bully pulpit of the 
White House is an important place, and we need leadership there 
that is sensitive to these issues and concerned about them.
    We all know that history is filled with instances where 
people were surprised. There were plenty of signals, plenty of 
warnings, plenty of cautions, but they were not taken aboard. 
They did not register. They were not sufficient to cause a 
person to act on those concerns. It was not that the 
information was not there. It just did not register.
    It happens to people in businesses. They go along, and 
pretty soon they do not see all those warning signs out there 
and they do not act on it. We see it in families when a 
youngster goes wrong, and when do you step in and do something, 
or try to do something?
    We know that the thing that tends to register on people is 
fear, and we know that that tends to happen after there is a 
Pearl Harbor. It tends to happen after there is a crisis, and 
that is too late for us. We have to be smarter than that. We 
have to be wiser than that. We have to be more forward-looking.
    So I would throw that back and say, it is going to take 
you, and it is going to take every member of this committee, 
and it is going to take Presidents, and it is going to take our 
friends in other countries to make sure that we understand that 
it is a world full of hope and opportunity, but it is also a 
world filled with dangers, and there are different kinds, and 
we need to be attentive to them, and I think we can be wise 
enough to do that.
    There is a wonderful book on Pearl Harbor by Roberta 
Wohlstetter, and a forward by Dr. Schelling, that talks about 
this problem of seeing things happen and not integrating them 
in your mind and saying, yes, we need to be doing something 
about that now, that I reread periodically because it is so 
important.
    As to a single big idea, I do not know, but it may be this. 
It may be that one of the biggest things we have to do is what 
I mentioned earlier, and that is, recognize that the deterrence 
of the Cold War worked. Those deterrents very likely will not 
work as well or as broadly as we will need during the period of 
this era of globalization, or post-Cold War period, or whatever 
we are going to end up calling it, that the problems are 
different, and the demands will be different, and that we as a 
people have an obligation to be smart enough to think about 
those things and to see that we get arranged as a defense 
establishment with our allies so that in fact we dissuade 
people from doing things.
    We do not want to win wars, we want to prevent them. We 
want to be so powerful and so forward-looking that it is clear 
to others that they ought not to be damaging their neighbors 
when it affects our interests, and they ought not to be doing 
things that are imposing threats and dangers to us, and I think 
we can do that, but I think it is going to take some fresh 
thinking.
    Senator Ben Nelson. Thank you.
    Chairman Levin. Thank you very much, Senator Nelson.
    Next, under our early bird rule, is Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman, and I want to 
thank you very much for your support in my obtaining a spot on 
this esteemed committee. I understand Senator Warner's dismay 
about the expansion of the membership after seeing how long it 
takes to move once around the cycle here.
    Senator Warner. I did not express dismay, I expressed 
appreciation to so many Senators wanting to come on. In years 
past we used to be like the old Navy. We went out and pressed 
them out of the bars and dragged them in. [Laughter.]
    Chairman Levin. He was not referring to Senators in bars, 
by the way.
    Senator Dayton. As you can see, if you were to cut it any 
finer, I would be the one who would be cut off, but feeling my 
lofty 100th position in seniority I can see I am going to be 
sitting at the end of a lot of tables for the next couple of 
years.
    But Mr. Rumsfeld, I join with the others in congratulating 
you for your willingness to take on this huge responsibility. 
Your career in both the public sector and the private sector is 
certainly admirable, and as a citizen and a public servant I 
think to combine those careers with the longevity of years is 
extraordinary, and I wish you well, and I do not presume to 
have the expertise that my colleagues here or you have, so my 
questions are inquisitory, not meant to be presumptive.
    I know that you said in your opening statement, you talked 
about the timetable, the cycle time for the development of new 
major projects, now 8, 9 years, and how that pace has slowed 
while technology has accelerated. To what do you attribute that 
lengthening delay, and what would you think might be some of 
the approaches to improving it?
    Mr. Rumsfeld. It is interesting to me that this is the 
case. We have seen in the sixties things could go from concept 
to deployment in a very short period of time. They had much 
more flexibility with respect to acquisition.
    There was much greater secrecy, and there was much greater 
urgency, quote-unquote, perceived urgency which allowed much 
more flexibility in acquisition rules and much greater secrecy, 
so at a time when those numbers have gone from a year or 2 to 8 
or 9, and in a period when technologies--in those days took 5, 
10, 8 years to change.
    Today they are changing in a year, so you have those two 
things conspiring to produce equipment that when it is there is 
not the most advanced possible. There has to be a way to 
shorten that process.
    Business is finding ways to do it. Silicon Valley has 
dozens of ways to do it. I do not know, beyond what I have 
said, that in some cases I think you leapfrog systems, but in 
other cases I think you probably keep platforms and leapfrog 
elements of that and provide flexibility as advanced 
technologies come along.
    We are going to have to do it. We cannot simply be spending 
money to produce things that are going to be behind the curve. 
We have to find ways to do it.
    It sure will not be Don Rumsfeld that will figure it out, 
but if I am lucky we will find people who are smart enough and 
a lot smarter than I am to put down and screw their head into 
it and then come up to Congress and talk about how we can 
adjust these systems so that they will work in the environment 
we are in, which is much more rapidly paced.
    Senator Dayton. It has certainly done a lot for Minnesota 
business. The difficulty and the length of time and the 
cumbersome procurement requirements, bidding contracts, 
procedures, anything that can be done it seems to me to reduce 
by two-thirds or more the amount of paperwork requirements and 
therefore the timetables involved will benefit the private 
sector as well as the Government.
    Perhaps related to that, you talked also about the need to 
try to have the technological systems of the various services 
better coordinated. You talked about, I think your phrase was, 
borne jointly, where they would start again, given the 
disparity of the services and the contracting procedures, like, 
how realistically are you going to effectuate it. I cannot get 
my Washington office computers and my Minnesota office 
computers joint at this point yet, so when you talk about the 
complexity of what you are doing, isn't that problem going to 
get worse?
    Mr. Rumsfeld. I am having the same problem with my 
computers, but it could. I mean, we have to see that the 
services can talk to each other. They simply must be able to do 
that, and the effort that occurred really well after my watch 
on, quote, jointness, has I think made strides in that 
direction.
    But I mean, your point about the private sector, the 
Government of the United States has not been a good customer. 
We have not been a good interactor with the defense industry. 
It is not an accident. The last time I looked the three top 
defense contractors in size, Boeing and Raytheon and Lockheed, 
had a market cap that was less than Wal-Mart. Now, why is that? 
Because doing business with the Government is not a great deal.
    Senator Dayton. I might prefer that you stick with the 
analogy of Target, but I would not quarrel with you. 
[Laughter.]
    In your response to the questions you were asked about the 
international criminal court, and particularly the Rome Accord. 
You said you opposed it. Is it that you oppose that concept in 
the entirety, or oppose the particular framework of the Rome 
Accord? What is your position, sir?
    Mr. Rumsfeld. I do not have the letter I signed along with 
George Shultz and a host of Republicans and Democrats 
expressing our concern about that, but if I am not mistaken 
President Clinton has recently signed that and announced he was 
not going to send it to the Senate, is that correct? I think 
that is right.
    Again, I am not an international lawyer, but my view of it 
was that it posed a risk to the men and women in the Armed 
Services that they could be doing the bidding of the United 
States Government and the United States Senate and be hauled 
before an international court for war crimes, and it concerned 
me, and it concerned a whole series of former Secretaries of 
State and Secretaries of Defense, which is the reason we signed 
the letter.
    The current status of the situation as I understand it is 
that the President has signed it and said that he had concerns 
about it and was not going to send it to the Senate for 
ratification. I am further advised that a signed agreement like 
that, even though not ratified, has standing, standing in the 
sense that if you sign it and it is not ratified, you take unto 
yourself the obligation not to undermine it and to support it 
and to behave reasonably in accordance with it. That concerns 
me, so I am uncomfortable with the position that President 
Clinton has taken.
    I am not the nominee for Secretary of State, nor am I the 
President-elect. It is up to them to take--in the National 
Security Council context to consider this, and my understanding 
is that President-elect Bush has indicated that is what will 
happen, that he will not send it up either, but whether or not 
he wants to leave it stand I think is an issue that the 
National Security Council would engage at some point in the 
future, and I would need to know a lot more than I currently 
know.
    Senator Dayton. My time has expired. Just quickly, we are 
sending you up there with all of the responsibilities, all this 
good advice. We talked just before this afternoon about your 
going there essentially by yourself. What can this committee do 
to help you get underway most productively over the next couple 
of months?
    Mr. Rumsfeld. If I get through this process and it looks 
like I am going to be confirmed, then the next order of 
business is twofold. One is to get briefed up by the fine 
people who have been serving there and understand what the 
circumstance is, and the second is to come to some judgments as 
to who I think ought to be recommended to President-elect Bush 
for nominees, and there are an enormous number of critical jobs 
that need to be filled.
    With a backlog in clearances and a backlog in FBI 
approvals, and the amount of time it takes to get through the 
Office of Government Ethics, and the amount of time it takes to 
process a human being through this thing, the odds are, if I 
get there, I will be there alone, without another soul that has 
been brought in to help, and you have to be very careful about 
bringing people in on a temporary basis to help you, because of 
the assumptions and presumptions, and because they have not 
been confirmed by the Senate they are really not in a position 
to make decisions.
    So we have a strange complication here, where we are kind 
of tangled up on ourselves. On the 20th we are going to have a 
President of the United States in office, and who knows how 
many of his Cabinet will be there. He cannot even nominate 
until he is sworn in, as the chairman said. I do not know what 
the answer is.
    As I said earlier, I know that I am just one human being, 
and there is no way I can do that job down there. The only way 
I can ever do anything in my life is to find the best talent 
around.
    Chairman Levin. Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, this is a pleasure for 
me to be a member of your committee, one in which you and the 
next chairman operate in such a bipartisan manner, and I am 
privileged and honored to be a part of the committee.
    Mr. Secretary--I will call you that ahead of time--welcome. 
Clearly, the issue of terrorism is going to be one that is 
going to be facing us quite a bit in the future.
    As we look back in the breakup of the Soviet Union, it is 
questionable whether the United States moved quickly enough to 
do what it could, as in the resulting chaos, where people 
utilizing money perhaps spirited away nuclear weapons, tactical 
nuclear weapons, the command and control system, all of the 
temptations that came into the system at that time, I would 
like to have your comments on that, and what you think we 
should be thinking about in this committee, assisting you as we 
try to confront this issue of containing this proliferation.
    Mr. Rumsfeld. The problem of terrorism is an exceedingly 
serious one. It is a problem for us in our homeland. It is a 
problem for deployed forces. It is a problem for our friends 
and allies, and I think it was Lenin who said that the purpose 
of terrorism is to terrorize, and that is what it does. It 
changes people's behavior, and the wonderful advantage is, a 
terrorist can attack at any time in any place using any 
technique, and it is physically impossible to defend at every 
time and every place against every technique.
    In Beirut, I watched a process where they first used trucks 
with explosives to drive into a barracks and kill 241 American 
Marines. The next thing, people started putting barricades up 
like we have around the White House, and what do they do then? 
Well, you change your method.
    What you do is, you start using rocket-propelled grenades 
and lobbing them over, so the next thing, you look at the 
embassy, the British Embassy in Beirut, and they have wire nets 
hanging off the building to reject rocket-propelled grenades. 
Fine. It did not happen again.
    The next thing, they go after targets. They go after 
people, families, going to and from their place of work. So it 
is not something that ends. It is something you need to be 
attentive to. It is something we need to have vastly better 
intelligence than we do today, and it is something that needs 
to not simply be a Defense Department problem, or a homeland 
defense problem, but it is also a diplomatic problem.
    We have to find ways to function in this world where we 
work with people and try to create an environment that is less 
hospitable to terrorists and to terrorism. I do not know the 
number, but I have something rattling in my head that we are 
spending today something like $11 billion on this problem, and 
I do not have any idea if that is the right number or the wrong 
number, but it is a lot, and it is a lot more, for example, 
than is being proposed to spend on some other defense 
techniques, but it is a problem.
    Senator Bill Nelson. Well, we are looking forward to 
working with you on this. Down in Florida we had an interesting 
election this year.
    Mr. Rumsfeld. I noticed that.
    Senator Bill Nelson. Part of the problem was military 
overseas ballots, and I want to work with the committee 
particularly in devising a way that--in Florida, for example, 
42 percent of the ballots were not counted, of the military 
overseas ballots were not counted because they did not qualify 
under Florida law, even though the Attorney General issued a 
ruling in the midst of all the controversy actually changing 
the effect of the law so that it did not have to be just a 
postmark, that it could be a signature, a date, and a witness, 
and what we need is some uniform procedures, and I am going to 
propose to the committee that we have voting by military 
overseas personnel by the Internet.
    It is interesting that just today a consortium of 
companies, both software and hardware companies, are proposing 
to do software for Internet voting for the entire country. 
Well, that is on down the road, but I think we ought to look at 
the Internet for our military overseas personnel. We can 
discuss that later.
    Finally, I have some knowledge of launch vehicles and the 
competition of American launch vehicles with foreign launch 
vehicles, and we are getting into a situation, as you have 
responded to other questions on space-based assets, of, we have 
to have the assurance that we can get those assets to space and 
now it is not necessarily the DOD payloads that we have to have 
on expendable booster rockets, which are Government vehicles, 
but we have a great reliance now of getting our commercial 
satellites on orbit, many of whom perform a function that is 
absolutely essential to the functioning of the free world, and 
we are relying on foreign competitors getting over half of 
those payloads to orbit.
    So I am going to look forward to working with you and your 
staff on this, and this committee as well on that. I would love 
to have any comments you have.
    Mr. Rumsfeld. Well, you are of course exactly correct. 
There is no question but that the launch capability of the 
United States has been diminishing relative to the rest of the 
world, and there have been three or four studies that have 
analyzed in some depth the nature of the problem with respect 
to U.S. launch capabilities, and I think it is important you 
have raised it, and certainly I am aware of those studies.
    Our Commission on Space Management and Organization did not 
go into detail on it because it had been addressed by so many 
previous organizations, and I think the problems are 
fundamentally rather well-known. They are not being attended 
to, but they are rather well-known.
    Senator Bill Nelson. Did your report get into the transfer 
of technology by putting American spacecraft on the top of 
foreign vehicles, particularly the Chinese?
    Mr. Rumsfeld. It did not. There have been others who have 
looked at that, and there is no question but that if you are 
going to marry a payload with a launch vehicle, that it 
requires inevitably a certain amount of technology transfer.
    Senator Bill Nelson. Thank you, Mr. Secretary. Thank you, 
Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman.
    Mr. Rumsfeld, you have certainly shown this committee 
impeccable credentials, and you have shown a great deal of 
candor and forthrightness in answering all of the questions 
that have been presented to you today, and I thank you for that 
and for your patience.
    Because of the length of the day and the brevity of my 
seniority I will confine myself to just one question. Fort 
Leonard Wood in Missouri is a major part of the Army training 
system, with a chemical school, an engineering school, and an 
MP school and I have been told that, from Congressman Ike 
Skelton, that the readiness level at this TRADOC post is not 
all that it should be, as it is not in other posts as well. I 
was wondering what your thoughts might be on how we would 
address the readiness level at TRADOC posts.
    Mr. Rumsfeld. Well, I am certainly not knowledgeable about 
that particular situation, but people are aware of their 
circumstance, and to the extent readiness levels in an 
institution like that, an organization like that are not what 
they ought to be, the people there know they are not what they 
ought to be, and it affects their attitude, it affects their 
morale, it affects their feeling about their jobs, and whether 
or not they want to stay in the service, so it seems to me it 
is part of a much broader problem that we must address, and 
certainly if it is true there, as I understand that it is, then 
it is very likely true in other locations.
    I would say one other thing about readiness. It is one 
thing to say, here are our readiness categories and here are 
the levels of readiness that we need to meet, and that is well 
and good, but the first thing to do is say, ready for what? We 
need to make sure what we are getting ready for, and that they 
are not simply categories that existed in the prior period that 
are not well-adapted to the future, because people understand 
that, too, the people who have the responsibility for that.
    It is not good for morale if you know you are breaking your 
neck trying to get your readiness level up for something that 
in fact made a lot of sense yesterday but may not make as much 
sense tomorrow.
    Senator Carnahan. Thank you.
    Chairman Levin. Thank you, Senator Carnahan.
    Mr. Rumsfeld, let me go back to national missile defense. I 
want to press that issue with you. I want to follow up on a 
number of questions which I, Senator Cleland, Senator Reed, and 
others have asked here.
    First, you said this morning that your experience led you 
to the view that in a crisis, that a President should not be 
presented with just two options, either capitulation or a 
preemptive strike. I could not agree with you more. But there 
is a third option that is missing from your response, which is 
to pursue the policy of the United States and not be deflected 
by any threat with a real level of confidence that it would be 
a totally irrational act for anybody to carry out that threat.
    You this morning said those dictators you enumerated are 
rational folks. We do not like them. We do not like what they 
do, but that they act rationally.
    Mr. Rumsfeld. Maybe not rational in our context, but by 
their standards.
    Chairman Levin. We have been told over and over again by 
our intelligence sources and otherwise that the first goal of 
these regimes is survival and self-perpetuation. This third 
option, which you did not address this morning, which is to 
pursue the course we are on and not be deflected by that 
threat, seems to me to be a very important and most likely 
option. We should not signal in any way to any of these folks 
that one possibility of their having such a weapon of mass 
destruction would be that we might acquiesce.
    I think Senator Reed made reference to that point. It seems 
to me it is absolutely critical, number 1.
    Number 2, you indicated that we should consider certain 
adverse effects if we fail to deploy a national missile 
defense, and I agree with that. I think the pros and cons of 
deployment at a time when we have a technologically feasible 
missile defense, when that time comes, if it comes, that the 
pros and cons should all be on the table.
    Mr. Rumsfeld. I agree.
    Chairman Levin. What is essential is to consider the 
effects you made reference to. It seems to me those are 
important effects, that we also have to consider the negative 
effects of a deployment if it is unilateral--if it requires us 
to pull out of the ABM Treaty that we have with Russia--and if 
it results in a larger number of weapons on Russian soil and 
Chinese soil.
    We had a report yesterday referred to in this morning's 
paper by the writers, Howard Baker and Lloyd Cutler. I referred 
to it this morning, but I just want to read one thing to you, 
that the most urgent unmet national security threat to the 
United States today is that weapons of mass destruction, or 
weapons-usable material located in Russia, could be stolen or 
sold to terrorists or hostile nation-States and used against 
American troops abroad, or citizens at home. Now, whether that 
is the most urgent unmet national security threat or not, and I 
happen to think it certainly ranks near or at the top, I think 
you would agree that it is a serious concern. I qualify this. I 
say, if the effect of our deployment of a national missile 
defense would be to increase the proliferation threat of a 
weapon of mass destruction, or material that is involved in a 
weapon of mass destruction by Russia responding to our 
unilateral withdrawal from this treaty by no longer reducing 
the number of weapons she has, or increasing the number of 
weapons she has, that is a factor which I hope you would 
consider. Would you agree it is a legitimate factor to 
consider, however you come out in the end?
    Mr. Rumsfeld. I agree completely that in this process the 
advantages and disadvantages of deployment should be considered 
and the advantages and disadvantages of not deploying should be 
considered.
    Chairman Levin. I welcome that. It seems to me that is 
important. But there are some other disadvantages I just want 
to throw in there, and I happen to agree with you that we 
should look at all the advantages and disadvantages. But I want 
to mention a couple of others.
    Our allies have urged us not to unilaterally deploy this 
system, not to leave them out of any system. They have not 
urged us, as far as I know of, in any case to unilaterally 
deploy. I use the word unilateral to mean that we would pull 
out of the treaty with Russia and proceed on our own, without 
being able to modify it.
    Now, you have said in your answers to the questions to the 
committee that you would seek modification of that treaty with 
Russia. I believe that was in your answers. It seems to me that 
is the course which should be followed. If it was not in your 
answers, then it was the President-elect that made reference to 
an effort to modify the treaty.
    Mr. Rumsfeld. It may have been the President-elect.
    Chairman Levin. Now, there is one other factor which I 
think should be placed on the table.
    Mr. Rumsfeld. Am I going to get a chance to comment?
    Chairman Levin. Absolutely, and if you cannot remember all 
of these points, then I will remind you of them. But there is 
another consideration here which seems to me that should be put 
on the table. Even if we are willing to take those adverse 
effects because we think that the positives outweigh the 
negatives, we are still left with the fact that there are other 
means of delivery besides missiles, trucks, and ships, which 
are cheaper, more reliable, have no return address.
    In the case of a truck, we could be threatened by one of 
these dictators with the kind of ultimatum like, I just invaded 
Kuwait. If you try to throw me out of Kuwait, there is a truck 
going around the interstate of the United States that has a 
biological or chemical weapon on it. You are going to lose part 
of your major cities, or you are going to see your air 
poisoned, for example.
    We are going to face potential threats even if we 
successfully create a national defense technologically, and 
even if we decide to take the risk of proliferation, which 
might result, if Russia's response is what she said that it 
will be, which is, forget the reductions, forget START II, 
forget START III. Rather than building down she is going to 
build up, creating the threat which Baker and Cutler talked 
about in their report.
    I would urge you to read the President's signing statement 
when he signed the Missile Defense Act, by the way. I think it 
is really important that you read that statement.
    I made reference this morning to the Missile Defense Act. 
Those factors which I have tried to enumerate in the last 
couple of minutes are all on the table before a deployment 
decision would be made by the current administration. Of 
course, it later on decided to delay it because of the failure 
of the tests. But I would urge you to read that statement 
before he signed the act, relative to the meaning of those two 
clauses, before you reach any final conclusion on the meaning 
of those two clauses yourself.
    I will stop there. I will help you to remember all of these 
factors if you were not able to write them all down, but I 
surely want to give you a chance to respond.
    Mr. Rumsfeld. Thank you. I think I have them all down. My 
question is, can I read my handwriting, I was writing so 
rapidly here.
    I think we have to begin with the fact that the President-
elect has indicated that he intends to deploy a missile defense 
capability. I do not want to get ahead of myself and argue in 
any way that suggests that I know what the outcome of the 
review will be or what he means by that, or what the National 
Security Council will end up recommending, and I understand 
that Congress has a role in this. The authorization and 
appropriation process is there.
    First, with respect to the concept of unilateral, I may 
overstate for emphasis a little bit, but I have the impression 
that for at least a period of 4, 5, or 6 years the argument has 
been made by the United States Government that missile defense 
would be destabilizing, that missile defense would be a bad 
thing, and that it could be, and the feedback we got was yes, 
that is right. The Russians say, we do not like it, and the 
allies say, we do not want the Russians to be unhappy and we do 
not want the agreements between the United States and Russia to 
be ruptured by the United States doing something unilaterally.
    There is no way I can prove what I am going to say, but I 
have a feeling that once the Russians understand that the 
United States is serious about this and intends to deploy, as 
opposed to the reverse of that, that they will in fact find a 
way in the negotiations--I do not know quite how, or when, or 
in what way--in the discussions that take place to accept that 
reality, recognize that there are threats from States with 
capabilities that not only threaten us and our allies and our 
friends, but over time will threaten the Russians as well. They 
are worried about terrorism. They are worried about military 
capabilities.
    Second, the implication has been set forth that we would do 
something precipitous or unilateral with respect to our allies. 
That is just not going to happen. We understand how important 
that alliance is. We understand that our allies need to be 
consulted. We also understand that to some extent the allies' 
concern is twofold. One is that--and I am meandering off into 
the Secretary of State-designate's area of responsibility and 
not mine, but--and I will tighten this up a little bit, but the 
allies are concerned, and I have talked with a number of them, 
about being disconnected.
    Our program, as it is currently on path, could conceivably 
have the effect of providing States with protection, but 
leaving our allies with less protection, and that kind of 
decoupling would be unwise by us. It would be unhelpful to the 
alliance, and I do not think you will see things happen--I 
think you will see a much closer consultation take place.
    Next, you mentioned the Baker-Cutler thing and connected it 
to this in some way. I do not see the connection. My impression 
is that--and I did not read the article. I was so busy getting 
ready for today that I did not read it carefully, but I was 
under the impression, at least, that they were talking about 
the loose-nuke problem, the risk that in fact nuclear materials 
and nuclear weapons and nuclear competence in terms of people, 
could and are and may to a greater degree lead to 
proliferation. I agree with that completely.
    The Russians have been telling us they have not been doing 
it, and they have been doing it. They have been helping Iran. 
They have been helping other countries. Certainly they have 
been helping India, and we know it and they know it, and they 
know we know it.
    Is it because they are actively trying to make mischief? Is 
it because they're making money, or is it because they do not 
have the kinds of controls over what is taking place in that 
country and there is a demand for that kind of assistance, or 
is it some combination of those? I do not know for sure, but I 
know that they in fact are active proliferators.
    The Baker issue is, I think, a somewhat different one, is 
my impression. You are right, there are other means of 
delivery, we know that. We know anything other than fighting 
armies, navies, and air forces is attractive because they are 
all cheaper. They are all more readily available, and they all 
offer the prospect that even without doing it you can affect 
people's behavior because you can threaten the use of a terror 
weapon and terrorize others and alter their behavior.
    My view of that is simply because you cannot do everything 
does not mean you should not do anything. I mean, I agree to 
the extent it is unattractive to work one end of that spectrum 
or some place along the spectrum. It inevitably will lead 
people to look for the weak link, to look for another part of 
that asymmetrical spectrum to assert their influence. I agree 
with that. That is a fact, and yet that does not say to me that 
it makes sense for us to remain vulnerable to ballistic missile 
attack if we do not have to.
    Chairman Levin. Thank you. I am sure my time is up.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I think everyone 
realizes our second round is 6 minutes.
    Chairman Levin. Yes. I should have announced that.
    Senator Warner. Mr. Chairman, I certainly want to 
compliment you and others. This has been an excellent hearing, 
and I have moved about a little bit in the course of this 
hearing and wanted to go over and welcome your Space Council 
and they are carrying on, as you might expect, quite well, and 
others, and throughout the whole way this compliment is being 
paid to this committee as a whole for undertaking a very 
thorough and in-depth hearing.
    I shall proceed quickly, under my 6 minutes. Did you want a 
seventh-inning stretch here?
    Mr. Rumsfeld. No, I am fine.
    Senator Warner. As you can clearly see, there is a 
diversity of views on this very important subject. For the 23 
years my good friend and I have been here in this Senate 
together, we have from time to time been on opposite sides on 
this question of missile defense, but listening to this very 
important colloquy between the two of you, let us also include 
the following category, and that is accidental.
    Military men and women training all over the world on all 
types of systems, accidents happen. No treaty is going to stop 
that. No form of deterrence is going to stop that, and I have 
often said that every President better have a draft statement 
on his desk to explain to a half-million American people who 
lost their lives and their families and survivors why we were 
not prepared to stop an accident, so that is a factor we had 
better figure in.
    Now, I want to cover some very important subjects that we 
touched on, and our very valued ally, Israel. As we have had a 
strategic relationship with them for many, many years. 
Unfortunately that area of the world is embroiled in conflict, 
one which you, as a former negotiator and troubleshooter, have 
a clear understanding of the origins. Regrettably, many of 
those origins are still there.
    I would like to have your views on that, and in the gulf 
region we have done our best. We have formed a magnificent 
coalition under President Bush. Some 13 nations came together 
to stop the aggression of Saddam Hussein, and send his forces 
back in-country, and we are in there alone today, except for 
some help from Great Britain in the air campaign and from some 
other nations in the sea campaign, to contain him. I would like 
to have your views on how we approach that.
    As I stated this morning, President-elect Bush has put 
together an extraordinary and superbly well-qualified national 
security team. These questions are going to be on their desk on 
the day of arrival.
    I would like to also explore with you the relationship 
between the People's Republic of China and Taiwan. Again, we 
have had a longstanding relationship with the people of Taiwan. 
We have in place certain agreements, and lastly I think we 
should cover the policy that you would hope to recommend to the 
President with regard to the withdrawal of our peacekeepers and 
our timetable, maybe not specifically, but the general 
discussion of the withdrawal from Bosnia and Kosovo. This is a 
subject I have been active in.
    Last year, I and other colleagues--Senator Byrd joined with 
me and I joined with him on separate pieces of legislation to 
try and bring to the attention of our allies the commitments 
they made, the fact that we were trying to fulfill our 
commitment, and somehow if they did not continue to live up to 
those commitments we would have to address a withdrawal policy.
    Well, guess what happened. Very quickly the allies came in 
and fulfilled their commitments in terms of money in Kosovo and 
troops and likewise, and that situation righted itself.
    I think it is important that the United States keep some 
presence in both the Kosovo and Bosnian military forces so long 
as our allies are there, perhaps not to the level that we have 
today, but we do not want to give the perception that we are 
not a reliable partner in all of these, so if you would sort of 
kick off, and we will take the first one.
    Mr. Rumsfeld. OK. Most of what you have posed, well, falls 
over in the area of the Department of State and the National 
Security Council as much or more than it does the defense 
establishment.
    Senator Warner. But you are a team, and you are at that 
table.
    Mr. Rumsfeld. I understand, and I am going to reach out and 
comment, but I want to preface it by saying that we are not in 
office. We have not had meetings. We have not talked about 
these things.
    Senator Warner. I understand that.
    Mr. Rumsfeld. It would be wrong for me to try to think I 
could sketch out policy, so whatever I am saying is coming from 
Rumsfeld.
    Senator Warner. That is clear, but we have an obligation 
under advise and consent to get your views, because you are one 
of the most experienced, if not the most experienced person on 
that team.
    Mr. Rumsfeld. Well, with respect to Israel, the situation 
is very difficult. The hostilities are obvious. People die in 
that region regularly. Israel is a very small country. They 
cannot make many mistakes about what they give up. There is a 
feeling I have had, watching that process, that to the extent 
someone leans forward, someone leans back, to the extent 
someone leans back, someone leans forward, and it goes that 
way.
    I do not think it is possible for the United States of 
America to go in and grab people by the scruff of the neck and 
think they could put them together and have something stick. It 
has to make sense on the ground.
    I have questions about Mr. Arafat's ability to manage his 
affairs, his circumstances, and I think to be dealing with him 
as though he were a State in control of his circumstance may 
not--may be somewhat unrealistic. I am hopeful. I think that it 
is an important issue that I am sure Secretary of State-
designate Colin Powell and Condy Rice and the President will 
engage, and certainly I will be happy to be a participant.
    The gulf coalition is in fact unraveling and there is no 
question but that Saddam Hussein's appetite for weapons of mass 
destruction has not disappeared. Under the agreement, he was 
allowed to continue working on ballistic missiles below a 
certain range and, of course, the weight of the warhead affects 
range, so he has his team together, and he is working 
aggressively to make better relationships with Syria under the 
new Assad, and I suspect that we will not have heard the last 
of him by a darned sight.
    The control over assets and funding I think is rather 
important and fundamental, and ought not to be let go. There is 
a lot of pressure from various coalition partners to ease up, 
but I think that central principle is one we ought to think 
about.
    Senator Warner. We have over 20,000 U.S. troops in that 
region containing these policies.
    Mr. Rumsfeld. They are risking their lives in the north and 
south with flights. It is a dangerous situation.
    The PRC and Taiwan, so much has been said I think there is 
not much I can add. Clearly, we have laws, we have obligations, 
we have hopes, and that situation also seems to ebb and flow in 
terms of the volume of the words coming out of the PRC on that 
subject, and at the moment they seem to have ebbed rather than 
flowed.
    Senator Warner. But the one thing certain is a steady 
buildup in the PRC military capabilities.
    Mr. Rumsfeld. Not just generally, but in that area.
    Senator Warner. That is correct.
    Mr. Rumsfeld. Third, peacekeepers in Bosnia. The first 
thing I would say is that we have forces on the ground. We have 
troops there, and we ought to be supporting them, and I worry 
about forums like this where we talk about altering what we 
have, the Government, the President, Congress.
    We have to decide what we want to do on these things, but 
discussions that lead to uncertainty harm the people on the 
ground who are trying to do things, and I went into Bosnia 
sometime back and visited with people from various factions, 
and they are either leaning forward or they are leaning back, 
and you can be sure the more there is talk about departure, the 
more they wait you out. It is true across the globe.
    I have never been a fan of deadlines. I mean, the original 
deadline that we would be out by Christmas was not wise, not 
good policy in my judgment. We ought not to do that. It tells 
everybody, wait for a year, go on.
    I think what we ought to do--and I know the President has 
said he will review it. He will. When he has a view--you can be 
certain he will not do anything precipitous. He understands the 
importance of the relationships with our allies. What he will 
decide, I have no idea. He will certainly consult with Congress 
as well as allies, and we will all know when that process has 
completed.
    Senator Warner. I think that term, consult with Congress, 
is a very reassuring one, Mr. Chairman and members of the 
committee, and I thank the distinguished witness for those 
replies.
    Chairman Levin. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. I had to leave for 
a while. I apologize for that. I must say, coming back, I 
thought I would find you weary, mentally worn, but I am 
discouraged to find that you are as sharp as you were when I 
left this morning. [Laughter.]
    I want to thank you particularly for some of the straight 
talk. As another member of the committee was fond of saying 
earlier last year, you have been on the straight talk express 
here for part of today, and I appreciate it.
    Chris Williams, sitting behind you, worked with Senator 
Lott, and Senator Lott and I have sponsored some legislation on 
our concern about proliferation to Iran, and you were dead 
right that the Russians have just continued to do that. 
Sometimes we do not like to deal with that reality, but it is 
real, and I appreciate the straight talk that you gave, and I 
hope that we will continue to work on that, because it 
threatens our security and the security of our allies.
    The same is true of your answer just now on the question of 
our forces in the Balkans, and I thank you for it. We made a 
serious mistake here some years ago, under political pressure, 
where we did set a deadline, and it created a real credibility 
gap that we are still fighting to overcome.
    Believe it or not, I want to come back to national missile 
defense in a slightly different way and make this statement and 
ask you for your reaction. I accept the reality of the threat. 
I think it is a serious one. I was an original or early 
cosponsor of the National Missile Defense Act. I was pleased 
when it went through Congress and pleased when the President 
signed it, and I was up in my office for meetings, listening to 
your earlier testimony, and if I understood correctly, in 
response to a question from Senator Akaka you indicated logic 
would tell us that in the time since your commission's report 
the threat has just naturally become more serious because 
proliferation goes on.
    My concern is about the timeliness of a response, and just 
to say that I am concerned, as the new administration comes in 
and thinks about the layered approach to national missile 
defense, that if you think about the 2005 date, or whatever 
date, even earlier by some estimates, which some of these folks 
who have hostile intent toward us could get capacity to do our 
homeland damage, I think that one of the reasons--not all, but 
one of the reasons the Clinton administration chose the land-
based alternative for national missile defense because it was 
possible, assuming technological abilities, to get, if you 
will, online earlier. Sea-based is essentially a concept now, 
and estimates I have seen say that it will not come online any 
earlier than 2010, space-based probably later than that.
    So my concern is, as you think about the alternatives you 
have as you come into office, that you take a look at the fact 
that while the land-based system missile defense may not be the 
best, it may be the one that we can get operating earliest.
    Mr. Rumsfeld. I do not disagree with that. I do not know 
enough to know, of certain knowledge, that that is right, but I 
have a set of impressions, and they are these, that the current 
program may very well have been something that could be done 
sooner than some of the other alternatives such as sea-based or 
space-based capabilities.
    On the other hand, my further impression is that the 
current system was designed to fit within the treaty. I have 
never believed--I mean, that treaty is ancient history. It is 
almost--it dates even back farther than when I was last in the 
Pentagon. That is a long time.
    Think what has happened to technology in the intervening 
period. I mean, to try to fashion something that fits within 
the constraints of that, and expect you are going to get the 
most effective program, the earliest to deploy, and the most 
cost-effective, it is just--it boggles the mind. That is not 
how people do advance technologies, is to sit down with those 
kinds of constraints and try to fit it in that straitjacket.
    I do not disagree that at this stage it may be something 
that could be done earlier than other alternatives, but I would 
say it may very well be that pieces of it might very well fit 
in what one might ultimately want to do.
    Now, this is all sheer speculation on my part. I mean, the 
press has kind of played me up as an expert in missile defense, 
and I am not. I know a lot about the threat, and I spent a lot 
of time on it, but I have spent much less time on the ways of 
dealing with it, and that is something I have simply got to 
wrap my head around.
    Senator Lieberman. I have one more question. Incidentally, 
enjoy whenever the press plays you up as an expert on anything, 
because it will not last long. [Laughter.]
    I want to come to the fifth of your priorities in the 
opening statement you made, reform of DOD structures, 
processes, and organization. One of the things that struck me 
in my years on the committee is the extent to which the goals 
of the Goldwater-Nichols Act have not yet been realized.
    That is one of them, which is one of the central ones, 
which is based on the conclusion, I think correctly, that 
warfighting would be joint, that therefore more of the 
operation of our military should be joint, and there has been a 
natural institutional resistance to that, and look, the four 
services have extraordinary histories of capability and unique 
functions to play, but I was thinking, in terms of your 
background, in this case in the private sector, that too often 
probably I found myself saying, I do not think any CEO of a big 
company--and there is no company as big as the Pentagon. You 
are about to become the CEO of the largest company in the 
world, but would tolerate that kind of overlap.
    We have made some progress lately, particularly through the 
establishment of the Joint Forces Command in Norfolk, and I 
really commend it to you and hope you can get to know it well, 
but ideally we should be having more joint experimentation, 
joint acquisition, joint training, so that when we come to 
warfighting we will not only have avoided redundancy and saved 
some money along the way to do some of the many things that we 
have all said today we want you to do, but we will be better 
able to fight jointly.
    Mr. Rumsfeld. I do not disagree at all. I think warfighting 
is inevitably going to involve all of the services, and to the 
extent they have not trained and exercised and equipped for 
interoperability in that kind of an environment they are not 
going to do what they could do had they done that.
    Senator Lieberman. My time is more than up. Thank you very 
much.
    Chairman Levin. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I know that the 
chairman has been a skillful questioner, let us say on national 
missile defense.
    Now, we went through a long battle on it. Senator Lieberman 
and Senator Cochran formed an opinion, as did a number of us, 
that we needed to move forward. We accepted your bipartisan 
unanimous report that by the year 2005 we did have a threat 
that we needed to be prepared to defend against, and in the 
Senate I think Senator Roberts had over 90 votes, maybe 3 
dissents, to deploy and follow through on this.
    The President did, in fact, drag his feet. We did not do 
the Alaska radar work that we hoped to have done this summer, 
so we have already missed the 2005 year that your commission, 
your report suggested we should try to meet, and so we are now 
at 2006, and I believe this summer we will have another date 
that we will need to make a decision soon to get started with 
the Alaska base or we will be at 2007.
    I just wanted to say, to follow up on Senator Roberts, I 
believe this Congress is for this. I believe we voted 
overwhelmingly for this, and with determined leadership, the 
technological problems will be overcome, and I think we need to 
move forward.
    Most Americans have no idea we have no defense to incoming 
missiles, absolutely none. They saw in Israel, in the Gulf War, 
some Patriot and Scuds, and think maybe we have that here. We 
really have none of that here, and I believe we need to move 
forward on that. I salute you for coming to it with the 
background you do, and I salute you for the report that you 
issued, and your fellow members, which we acted on, and the 
President did sign.
    I would like to pursue a little bit--and by the way, on 
national missile defense, we are talking about a $3 billion a 
year expenditure, maybe $4. That is hardly 1 percent of the 
total defense budget. It is not going to drain our defense 
resources to deploy national missile defense.
    Colombia has 38 million people. It is a significant trading 
partner of the United States, but 40 to 50 percent of that 
country is now being held by Marxist guerrillas who are working 
with the narcotraffickers. Venezuela is showing some strange 
activity.
    At best, I do believe we need to give more attention to our 
hemisphere, and when you compare that to Kosovo, there are 2 
million people we have no trading relationships with, and it is 
clearly in the backyard of the Europeans.
    Would you share with us your view about the importance of 
our involvement in this hemisphere in general?
    Mr. Rumsfeld. Well, in general is about what I can do. 
Again, I am reluctant to be continuously infringing on my 
friend Colin Powell's areas of prospective responsibility. We 
live here. It is important to us, there is no question that 
this hemisphere is, and I think that successive administrations 
in both parties have recognized that and addressed that over my 
adult lifetime.
    That is a very complicated problem down there, and I need 
to get steeped in it. We have talked a bit about what is going 
on. I understand there are a limited number of U.S. military 
forces, that the State Department has the lead, that a lot of 
what is being done there is being done by contract personnel, 
that there is fear around the periphery that whatever is done 
in Colombia is not going to end the problem but move the 
problem geographically.
    I have read the same speculation you have about the 
Venezuelan involvement. I do not know much about it beyond 
that. It is going to take a lot of very careful thought, and a 
combination probably of the kinds of things that are being done 
as well as diplomacy, to see if we cannot have that situation 
begin to get better rather than worse, thus far.
    I have seen the maps that show the minimal control that the 
Government is currently exerting in the country, and it tends 
to be urban areas, as I understand it.
    Senator Sessions. It is a disturbing situation, and I do 
not know the answer to it. I do not believe it requires troops, 
but I do believe we need to say, which Ambassador Pickering 
would not say in one of these hearings when I asked him, that 
we endorse--perhaps they have sense, but we need to endorse 
unequivocally the oldest democracy in the hemisphere, except 
ours, Colombia, in their struggles with the Marxist guerrillas, 
in my view, and we need to encourage them to be aggressive, and 
if they are not going to defend their country, I do not see how 
we can defend it for them.
    But I believe they are going to be reaching a point soon 
where they are going to decide they have to fight to preserve 
their democracy, and if they do not fight they are going to 
lose it. At that point I think we are going to have to help 
them. I wish we did not, I wish it was not a problem, but I am 
afraid it is.
    Finally, I would say I agree with you totally that this 
treaty with Russia and the missile defense question is ancient 
history. It was with a dead empire that no longer exists. 
Surely we will deploy the best system and work and just deal 
with the Russians in a fair and objective way, tell them we 
love them, we want to be partners and friends with them, but we 
are going to do what is in our interests to protect our 
American citizens, and I think they will accept that if we will 
quit waffling and be clear, and I hope that you will do that.
    Mr. Rumsfeld. Thank you.
    Chairman Levin. Senator Cleland.
    Senator Cleland. Thank you, Mr. Chairman. Just for the 
committee's information, I do understand that under the voting 
of military ballots and the counting of military ballots 
overseas, with your help, Mr. Chairman, and myself and Senator 
Hutchison and Senator Warner, we have asked for the GAO to do 
an independent investigation on this whole issue of military 
ballots being counted, and how military votes overseas, and 
that that report will be to us in a matter of months.
    Mr. Secretary, let me just say, thank you very much for 
waiting us out and for being so patient. A couple of years ago 
you signed a letter along with Dick Cheney supporting full 
funding for the F-22, which is advanced technology for our 
tactical aircraft. I would like to, Mr. Chairman, submit that 
letter for the record, if there is no objection.
    Chairman Levin. It will be made a part of the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Cleland. Mr. Secretary, thank you for your support 
of the F-22 in the past. I hope we can count on your continued 
support for the F-22. Any remarks you would like to make on 
that?
    Mr. Rumsfeld. No, sir, other than that I said what I said, 
I believed it when I said it, I am now in a circumstance where 
I have to take a review and look at that and other things and 
try to come to some rational conclusions, and I shall do so.
    Senator Cleland. Thank you very much. In terms of airlift 
capability, it is interesting that the fiscal year 2000 defense 
authorization bill did direct the Secretary of Defense to 
submit a report to this Congress no later than February. The 
airlift requirement report is in. The current requirement for 
airlift in the Pentagon is almost 50 million ton-miles, and a 
mobility requirement study estimates the requirement may rise 
to around 54 or 55 million ton-miles.
    With the move away from more forward-deployed forces, an 
airlift and air mobility more and more important, the C-130J is 
integral to our rapid deployment operations. The last 
administration proposed some 24 new C-130Js over the next 4 or 
5 years. I have a special interest in this program, Mr. 
Secretary, and would hope that you would continue to look hard 
at the C-130J program, particularly in terms of its critical 
role in moving our forces abroad.
    Finally, Warner-Robbins is one of three remaining Air Force 
depots. There used to be five. Now there are three. Part of the 
challenge here, it seems to me, is to determine if the Pentagon 
is going to continue to keep core capability in its maintenance 
and depot facilities, and in determining that core capability I 
just hope you would work with all of us so that our military 
commanders will have the ability in a crisis to ramp up and 
work 7 days a week, 24 hours a day, to meet the needs of our 
servicemen and women overseas.
    So I will just have those thoughts, and any response from 
you would be welcome.
    Mr. Rumsfeld. I have not engaged this subject of depots. I 
understand that among all the caucuses in Congress these days 
the depot caucus may take the cake as being the largest one. It 
is a subject that--let me phrase it this way. There is no 
question but that the United States military needs to have what 
they need to have, and the question is, in what way can they 
assure that they have that so that their capabilities, and our 
capabilities as a country to contribute to peace and stability 
are assured?
    I have not looked at it. I understand it is there and will 
certainly address it.
    Senator Cleland. Thank you very much. We talked about one 
big idea, and when I heard that I thought about maybe a 
question on deterrence in this new globalized era, and defining 
what could maybe deter the terrorist or the biochemical attack 
and so forth, and I appreciate your views on that and look 
forward to that continued discussion.
    But one of the big ideas I would just like for you to think 
about in the challenge of dealing with an all-volunteer force, 
and now a married all-volunteer force in terms of a big idea, 
in the last few years, in looking at the GI bill and its power 
to attract young men and women to the military, maybe one of 
the big ideas we ought to explore together is in the American 
military being the greatest university in the world.
    In other words, we are going to have to train constantly, 
and there probably already is the greatest university, 
certainly the biggest university in the world, but education 
begets education. If the American military can become known not 
just as a good place to get a couple or 3 or 4 years of 
education and then get out, but some place to educate yourself 
and your family over the long haul, then maybe we can work in a 
wonderful way on our retention problem as well.
    Because people who get out that contact me, get out 
basically with tears in their eyes. They love the military, 
they love the service, but they get out because they have 
pressures on their families. One of the pressures on their 
families is their kids' education.
    So I would just like to throw that out as an interesting 
big idea that we can explore as we walk down this road 
together, because it does seem to me that the power of the GI 
bill, or the power of education and the military can be a 
powerful tool to keep people--I mean, to attract people and to 
keep people in that otherwise would get out, but we have to 
broaden it so that it includes their families as well.
    I might say one of your colleagues in the Cabinet will be 
Tony Principi, who was the author a couple of years ago of the 
Principi Commission report, which actually recommended the 
concept that a serviceman or woman can take their unused GI 
bill assets and transfer them to their spouse or to their kids, 
thereby creating a college fund for them. Tony Principi was the 
author of that idea, and he will be in the Cabinet with you as 
head of the Veterans Administration, so I wanted to throw that 
out as a big idea that you might consider.
    Mr. Rumsfeld. Thank you very much.
    Senator Cleland. Thank you very much for your patience, Mr. 
Chairman. No further questions.
    Chairman Levin. Thank you, Senator Cleland. Let me also add 
our thanks for your continuing leadership on the broadening of 
the GI bill. It is a very important initiative. You have had a 
little success. You deserve a lot more success, and hopefully 
will achieve a lot more success in that area.
    Senator Nelson.
    Senator Ben Nelson. Mr. Secretary, in Nebraska we have the 
Joint Command and Strategic Command. The military for the last 
several years and the civilian leadership have worked toward 
finding ways to marry the military establishment in a way that 
certainly will work better for cooperation and collaboration, 
and obviously under a Joint Command you tend to get that. It 
surprises people in Nebraska to see the Strategic Command under 
the control of an admiral from the Navy, because Nebraska may 
be nearly landlocked, except for the Missouri River.
    I have a question that really relates to how you develop an 
exit strategy without showing your hand. We have a civilian 
military. We have a citizen Government, and yet we know that 
the right of the public to know is there, and this body 
provides oversight so that when you come with an idea that you 
would like to provide some knowledge about, the first question 
is, what is your exit strategy? Once you have tipped your hand, 
there is no going back. The genie does not go back in the 
bottle, whether you say we are not going to use any land 
forces, we are going to be out by December--are we somewhat 
relegated to going back to 1968? When nominee President Nixon 
was running and said, ``I have a plan to end the war,'' he 
would not tip his hand.
    I think when you have this challenge it is very easy for 
people to put you in the box, where they want to know that you 
have a plan, they want to know what it is, but once you have 
told them, it is like the coach giving his playbook to the 
other team, the other coach.
    Mr. Rumsfeld. You have put your finger on an enormously 
difficult problem. I was chief of staff in the White House when 
Vietnam ended, and you had all of these fine people who had 
supported that effort, and at some point you pulled the plug, 
and when you do, people are killed, people are hurt, people are 
damaged, and the reputation of our country for following 
through and for consistency and for being a reliable partner is 
damaged for a period.
    I was the one who had to go tell President Jamail of 
Lebanon that the United States and the President and Security 
Council had decided to withdraw support, and walked into his 
office, and it was a heartbreaker, just an absolute 
heartbreaker. There were a whole host of people who had stepped 
forward and relied on us to help him try to get the Syrians out 
of his country, and at a certain moment it is gone.
    You are right, if you talk and if you telegraph something 
more people get killed, more people are damaged, and the 
hardship is much greater.
    What is the answer? Well, I do not know what the answer is. 
I think part of the answer is, let us try not to get into 
things we cannot get out of. Let us try not to get into things 
we cannot finish well.
    We are still going to have this happen. We are not always 
going to be right. We are going to end up trying to do things 
because we are concerned and we care, and it will not work 
because we miscalculated. We thought there was a greater 
possibility that there could be an institutional capability to 
sustain itself and create a nation that could build and go 
forward, but that is hard.
    We are not geniuses at nation-building, institutional 
capabilities. There has to be something where people say, my 
gosh, the Marshall Plan, goodness gracious, those countries 
there, they were capable, they were competent, we gave them 
money. They did what they did, and the analogy of the Marshall 
Plan to some of the kinds of continents that we have been 
dealing with and problems that we have been dealing with I 
think is a mismatch.
    You are right, I think that about all you can do is if you 
have been wrong, do it fast, confess, and get out. That is all 
you can do, and try not to get yourself in a situation where 
you cause other people to support you and then you leave them 
in the lurch, which is just a heartbreaker.
    Senator Ben Nelson. Thank you.
    Chairman Levin. Thank you. Senator Dayton.
    Senator Dayton. Mr. Chairman, I believe that a member of 
President Kennedy's Cabinet said that as Secretary you have one 
boss and 535 advisors, and I think you have received enough 
advice for one day. I wish you well, and I would cede the rest 
of my time unless there is anything you would like to say, sir.
    Mr. Rumsfeld. I would like to say something, Senator, and I 
thank you for that opportunity.
    Chairman Levin. By the way, there will be another round of 
questions.
    Mr. Rumsfeld. Maybe I will save it, then. [Laughter.]
    Well, I will say it right now. I must say, if I know 
anything I know that you do not tackle Defense Department 
problems and issues and challenges by political party. You do 
it on a bipartisan basis, and I respect the way you and Senator 
Warner have handled your back-and-forth chairmanships, and I 
admire it, and I assure you that I approach these issues in a 
nonpartisan way, and I intend to work with the committee in 
that way and look forward to it.
    Chairman Levin. We are going to have a third round for 
those who might be interested in asking additional questions.
    First, on the space policy question. There was a report in 
Defense Daily recently--it quoted--I do not know who was saying 
these words, but here are the words: ``Rumsfeld understands the 
need for militarization of space.'' My question is, do you see 
the need for the ``militarization of space''?
    Mr. Rumsfeld. I did not say it, and I do not know who wrote 
it, and I do not know quite what it means. Let me see if I can 
put some words around my thoughts on the subject. We know what 
has been done on land by way of military conflict, we know what 
has been done on the sea, and we know what has been done in the 
air. I think it would be a stretch to suggest that space will 
not at some point in the future find itself receiving similar 
attention.
    Why do I say that? Well, if, for example, we have an 
interest on the sea to maintain the sea lanes open and to 
create an environment that is hospitable to sea traffic for 
international intercourse, and we have a lot of assets in 
space, one would think we would feel or share a similar view 
about having the assets in space free to provide these services 
and the capabilities that they do, and to the extent we do, as 
we do, both civilian and military space assets, and to the 
extent they conceivably, as with ships and tanks and planes, 
become a target at some point, there is no question in my mind 
but that it is in our interest to create the kinds of 
deterrence and capability so that it is not attractive to 
disable the United States and our enormous dependence on space 
assets.
    I do not know quite what that means in answer to that 
article, but those are my views, and I should say these were my 
views as a member of the commission. They are not the views of 
the administration, since I have not had a chance to even 
discuss these things with President-elect Bush or the National 
Security Council.
    Chairman Levin. Thank you. You made, I think, brief 
reference to this today. That the United States and North Korea 
signed an agreement in 1994 which provides that North Korea 
will end and disband its plutonium production capacity. By the 
way, I actually went up to see with my own eyes that that was 
being done. It also called for the United States to lead a 
coalition with South Korea and Japan to provide North Korea 
with proliferation-resistant light water reactors if it 
complies with every step of the agreement, and it also provides 
for some fuel, I believe, to substitute for the loss of that 
capacity. Assuming that both sides comply with this agreement, 
in your judgment does this agreed framework serve our national 
security interest?
    Mr. Rumsfeld. I will offer some personal views, but I have 
to again begin with the beginning, and that is, this is quite a 
distance off my turf, and certainly the National Security 
Council and President and Secretary-designate Colin Powell will 
be addressing it.
    My view on North Korea is that they have been as active a 
proliferator of technologies across the globe as any country 
that I know of. It is hard to believe that a country that 
cannot feed its people, that has a dictatorship that is as 
repressive and damaging to its country as anything on the face 
of the earth, could be developing and marketing and benefiting 
financially from the proliferation of these technologies, but 
it is a fact.
    I was very impressed with the Senator's photograph of the 
Korean peninsula earlier today, where it showed lights in the 
south, and lights in China, and black, and it is a wonderful 
metaphor for the problem.
    I think talking is fine. I am glad they are talking. I 
think there has not been, to my knowledge, changes in their 
military posture with respect to South Korea or with respect to 
their activities of proliferation. It is good to be hopeful. It 
is good to talk. I am not an expert on the agreed framework. I 
have not been there, as you have. I am not sure I would be 
welcome.
    Chairman Levin. As far as you know, have they dismantled 
their plutonium production capacity?
    Mr. Rumsfeld. I know that--I know what I know and I know 
what I do not know, and I do not know what I do not know. 
Specifically, they are world-class tunnelers. They have gone 
underground across that country in a way that few other nations 
have done. They have underground emplacements that have 
enormous numbers of weapons.
    For me to sit here, having never been there, and not being 
a sufficient expert to know anyway, and say that I have high 
confidence that they are doing what the agreed framework 
suggested would be foolhardy. They do not have a record of 
behaving well, and we know they are a secretive, closed 
society, and it is perfectly possible for Americans to go 
milling around there, think they see something, and it is over 
there. It is a shell game with those folks.
    Chairman Levin. Let me try a different question. Is it in 
our interests to try to find a way to eliminate North Korea's 
plutonium production capacity so they cannot build nuclear 
weapons? Is it in our interest to do that?
    Mr. Rumsfeld. I would broaden it. I think it is in our 
interest, and our Asian allies' interests, and our 
antiproliferation interest across the globe that North Korea 
stop proliferating, stop threatening South Korea, and begin to 
behave rationally to its people and stop having them die of 
starvation.
    So I guess the answer is, sure it is in our interest, but 
there are a lot of things that are in our interest with respect 
to North Korea, and I do not know that I would stick one ahead 
of the other.
    Chairman Levin. I would agree with you there are a lot of 
things that are in our interest, but it is in our interest to 
end the plutonium production?
    Mr. Rumsfeld. You bet.
    Chairman Levin. There are a lot of other things in our 
interest as well, but at least you would agree that it is in 
our interest?
    Mr. Rumsfeld. Yes.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    Just to put on our old Navy hats for a moment, and that is 
the shipbuilding program in the Navy. Any reasonable analysis 
of the curves in the outyears, the current projection? We are 
going to be moving down precipitously close to the 300 level, 
and I just think at the moment the most you can say is, again 
climbing back into our purple suits so we are fair to all, we 
have to address the level of naval ship construction, and we 
have to do it early on. Do you not agree with me?
    Mr. Rumsfeld. I agree. I think that the pressures we face 
around the world with respect to bases suggest that we do need 
to be able to have capabilities that are afloat.
    Senator Warner. My follow-on for that, of course, is that--
and these are true stories--Presidents, when they are awakened 
at night by that phone, either you on the other end or someone 
else, the Secretary of State advising them of a crisis 
somewhere in the world, as Senator John Stennis, the very 
valued and wonderful chairman of this committee used to say, 
the Presidents would always say to me, well, the first thing 
that comes to mind, where is the nearest U.S. aircraft carrier? 
Do you recall that?
    Mr. Rumsfeld. I do indeed. Mr. Stennis was chairman when I 
was last Secretary.
    Senator Warner. I testified before him, as did you, many 
times. We have to keep that carrier level up. We have 12 now, 
one in training capacity, several in upkeep, some in transit, 
four to five at max on station throughout the world, and I 
would hope that you would indicate to me now that your 
preliminary thinking is, we have to maintain that minimal 
level, in my judgment, of that key asset of our arsenal of 
deterrence.
    Mr. Rumsfeld. Senator, as an ex-Navy pilot I am not unaware 
of the value of aircraft carriers, but the last thing I am 
going to do is start speculating about one weapons system. I 
have an enormous task to gather some folks and look at the 
whole picture and see that they come into a coherent whole, and 
I am reluctant to start piecing things out.
    Senator Warner. That is all right, my good friend. You 
maintain your reluctance, and I will not have any reluctance to 
continue to bring that subject up with you repeatedly from time 
to time. [Laughter.]
    South Korea. It is so interesting, my modest experience in 
the U.S. military, and I have said this before, it did a lot 
more for me than I was able to return to them on Active Duty, 
but anyway, with South Korea, in the Marines in 1951. We are 
still there, 50-plus years, and we have a very significant 
number of our troops there.
    Now, you have covered the North. Let us talk a little bit 
about the South and its importance as our strong ally, and its 
importance for the forward-deployment of our troops to be in 
that region. I think this record should reflect some of your 
views on that.
    Mr. Rumsfeld. Well, I think the U.S. presence in Asia 
since, essentially since the Korean War and World War II, has 
been a superb investment in the sense that we have, without 
question, contributed to a more stable region.
    Their presence there is still useful in that regard, and I 
think that--I am trying to think where I heard it or read it, 
but there have been comments to the effect that in 
conversations between the North and the South, both have 
indicated that the U.S. presence is a useful thing, and I find 
that very interesting. The rhetoric sometimes from the North is 
a little different, but my impression is that realistically we 
are wanted and it is a good thing for us to be there.
    I also think it has been helpful from the standpoint of 
Japan.
    Senator Warner. I do, too, and indeed they are very 
valuable allies for the security of that region out there, and 
we should really touch a little bit on our valuable allies, 
Australia and New Zealand, and you will undoubtedly be visiting 
that region of the world, where we have had to dispense some of 
our troops not long ago for a contingency situation, but they 
are valued allies.
    Mr. Rumsfeld. As you look at what is happening in that part 
of the globe, and the periodic difficulties that the People's 
Republic of China has had with its neighbors, whether it is the 
Spratly Islands, or difficulties with India, difficulties with 
Russia, difficulties with Vietnam, there is no question but 
that Australia is a truly important nation, and it is important 
to that region, it is important to us, and it seems to me that 
it merits a priority from the standpoint of the United States 
of America.
    Senator Warner. Mr. Chairman, again, an excellent hearing. 
I would yield back the balance of my time. I think our witness 
has more than fulfilled our expectations, and the endurance 
test he has withstood indicates he can handle that department 
pretty well.
    Chairman Levin. Just a few more questions. Senator 
Sessions, would you like to go first?
    Senator Sessions. You go ahead.
    Chairman Levin. The Army has been in the process of 
transforming itself into a lighter and more agile force that 
can deal with the challenges posed by threats in the uncertain 
future. In response to the pre-hearing questions, you stated 
you would not be in a position to evaluate the Army's plans 
until you have conducted a complete review of all the services' 
investment programs. That review is expected to take several 
months, and therefore I have the following questions.
    Does your answer mean that we should not expect any changes 
to the Army's transformation plans in this budget cycle?
    Mr. Rumsfeld. I just do not know.
    Chairman Levin. Are you open to the possibility of 
reallocation of resources among the military departments, if 
your review points in that direction?
    Mr. Rumsfeld. It would be foolish for me to say that I was 
not open to anything at this stage, because I really am coming 
out of civilian life into an institution that is not easily 
understood.
    Senator Warner. Or managed. [Laughter.]
    Chairman Levin. You have been asked a number of questions 
about the U.S. and China, and I have one additional one in that 
area. What approach would you take with respect to military-to-
military contacts between the United States and China? Do you 
have any feelings?
    Mr. Rumsfeld. We have had some, and I have been there 
myself.
    Chairman Levin. Do you have any feelings about continuing 
or expanding those contacts?
    Mr. Rumsfeld. I have not thought about it. Off the top of 
my head, I have no reason to believe that they are undesirable.
    Chairman Levin. Just a couple of questions to follow up 
Senator Sessions' questions on the missile defense issue. I 
want to read just a portion of the statement of the President 
when he signed the Missile Defense Act. I think it is 
important.
    Mr. Rumsfeld. I would like a copy of it, if you have it.
    Chairman Levin. We will provide that to you.
    Before I do that, though, I want to ask you a question 
again. I think you answered it clearly this morning, but given 
something which was said just a little while ago, did your 
report on the North Korean or on the missile threat in general 
suggest anything relative to the deployment of missile 
defenses?
    Mr. Rumsfeld. Not that I can recall.
    Chairman Levin. Now, this is just a part of the President's 
statement. I am going to give you the whole thing to read after 
the hearing. I am going to be putting the whole thing in the 
record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    We have been talking about two sections. One is the 
``policy of the United States to deploy as soon as 
technologically possible an effective national missile defense 
system with funding subject to the annual authorization of 
appropriations and the annual appropriation of funds for NMD. 
By specifying that any NMD deployment must be subject to the 
authorization and appropriations process, the legislation makes 
no clear decision on the deployment has been made.'' We call 
that the first point.
    Mr. Rumsfeld. This is reading from his statement?
    Chairman Levin. I am. This is part of what the President 
said relative to the second policy that was in that National 
Missile Defense Act.
    Section 3 puts Congress on record as continuing to support 
negotiated reductions in strategic nuclear arms, and he also 
said our missile defense policy must take into account our arms 
control and nuclear nonproliferation objectives. At the end he 
said: ``Any NMD system we deploy must be operationally 
effective, cost-effective, and enhance our security. In making 
our determination, we will also review progress in achieving 
our arms control objectives, including negotiating any 
amendments to the ABM treaty that may be required to 
accommodate a possible NMD deployment.''
    I offer you an opportunity to react as to whether you 
disagree with any of that. It is kind of hard, because maybe I 
read too many excerpts for you to follow. In any event, do you 
wish to comment now or not as to whether you have any 
disagreement with that. I really would urge that you read the 
President's statement after this hearing so that you are 
familiar with the thinking of both the administration in 
signing that act, but also the thinking of many of us--I will 
not say a majority, necessarily--but many of us in supporting 
that act after section 3 was added in the Senate.
    It is a very important part of the history of that National 
Missile Defense Act. Now, let me give you an opportunity to 
comment if you want.
    Mr. Rumsfeld. Well, Mr. Chairman, I will read it. As you 
went through it I was trying to parse it in my mind, and 
clearly, while President Clinton is President that is his view. 
We have a President-elect coming in who has expressed some 
views that are somewhat different from that.
    Chairman Levin. I am talking about the view of the 
President about the act he was signing. I do not know if the 
President-elect has any different view about this act. He has 
not spoken, as far as I know, on that issue. Maybe he has. But 
I am talking about just what the President who signed the act 
said when he signed it.
    Senator Sessions, do you have anything more?
    Senator Sessions. I do not.
    Chairman Levin. Let me just make a very quick final 
statement. First, we will include any statements in the record 
by committee Members who either were not able to be here today 
or who were here today but would want to expand on any 
statements they made. There were a number of Members who had 
other commitments. This hearing came up quickly and a number of 
our Members were unable to make it, although they are occupied 
in a number of instances on business that relate to this 
committee's work.
    Second, several Senators have indicated that they have some 
questions that they would like to submit to you for the record. 
We will ask for those questions, if possible, by the end of 
this week. You have many things to do. I do not expect there 
will be a lot, but there could be some, and I want to keep that 
record open. I know Senator Thurmond asked me to keep the 
record open for questions he wanted to ask. There may be others 
that want to ask questions. The record will be kept open for 
that purpose.
    We will keep the record open at least through tomorrow. We 
urge everybody to get their questions in by tomorrow, and then 
urge you to respond by the end of the day next Wednesday. If 
any questions come in after that, we will just give you 
additional time. We do not expect there will be a lot.
    We look forward to getting all of that paperwork you made 
reference to.
    Mr. Rumsfeld. We have it over at the other places. Before 
they want to release it they want to try and massage it.
    Chairman Levin. As always, there is an FBI report which we 
will receive and we will review. We again want to recognize 
your family for your attendance and your patience. You may not 
have noticed, but the audience has significantly dwindled. What 
has not dwindled is the love, affection, and support of your 
family, and we thank them for that. We will now stand in recess 
subject to the call of the chair. We do not expect we are going 
to need another hearing, but I do not want to preclude that 
possibility because we do not know what events may transpire. 
We will, therefore, stand in recess subject to the call of the 
chair.
    We want to thank you for your testimony today. Again I 
think you feel that there is broad support to move this 
nomination quickly out of this committee as soon as that can 
legally happen, after receipt of all the materials and after 
the President-elect formally sends in your nomination after he 
is inaugurated.
    Senator Warner, I do not think you were here at that 
moment, but I am sure that you, as our chairman-to-be, will 
move expeditiously, within moments after receipt of that 
official nomination on the 20th, to convene this committee. 
That is going to be his call because it will be his gavel.
    Senator Warner. Let us elaborate, because a lot of people 
are quite interested in that. What we did last time was, 
President Clinton came off the dais after the inaugural 
ceremonies and went up and signed a series of documents. Among 
them were the nominations of several Cabinet members.
    The committees voted, and then the Senate voice-voted that 
day, and in discussion with our distinguished Majority and, 
indeed, Minority Leaders, I think that is their intention to do 
just that, so I think we will follow the protocols that we have 
had through the years, and the Good Lord willing, and your 
endurance and that of your family, things should be in place 
Monday afternoon.
    It is important we do that, that the security team, 
particularly of the President of the United States, 
irrespective of the President, be in place.
    I remember our old boss one time, President Nixon, I 
happened to be with him one day and he said that the order of 
the succession of the presidency should never be in doubt for a 
minute. I remember that very well, and the same way with the 
team in the National security.
    So I congratulate you, I join my colleagues in 
congratulating you for a very, very good hearing. Both of us 
have been through hearings now for 23 years, and we put this 
one at the very top. Again, you and your family have stood the 
test side by side.
    Chairman Levin. If this ideal process works as outlined, 
the Inaugural Ball you will be going to a week from next 
Saturday night will be at the Pentagon. [Laughter.]
    Mr. Rumsfeld. Mr. Chairman, Senator Warner, thank you.
    Chairman Levin. We stand in recess.
    [The prepared statements of Senators Smith, Santorum, and 
Hutchinson follow:]
                Prepared Statement by Senator Bob Smith
    Secretary Rumsfeld, I thank you and your family for coming before 
the Senate Armed Services Committee today. I am very pleased with your 
nomination. President-elect Bush has made an excellent choice to bring 
you onto his national security team. I can think of no one more 
qualified. You bring to the office your great experience, having held 
the position of Secretary of Defense previously in the Ford 
Administration. As a former White House Chief of Staff, you bring to 
the office your knowledge of the challenges faced by our President. As 
a former Congressman, you bring to the office a knowledge of the Hill. 
You also bring to the office your experience as a highly successful 
businessman. When confirmed, you will be running an organization larger 
than any business in the world, an organization chartered to defend the 
United States of America. Most of all, you bring to the office a great 
appreciation for the two major threats this Nation will face in this 
new century which I have long fought to address on this Committee and 
in the Senate, namely the threat to our Nation's growing reliance on 
space and the threat from missile attack.
    Coincidentally, today also marks the release of the report from the 
Commission to Assess United States National Security and Space 
Management and Organization, more commonly known today as the Space 
Commission, which I worked to create in the Fiscal Year 2000 Defense 
Authorization Act. You chaired that bipartisan group composed of the 
Nation's leading military space experts. The Space Commission's 
findings confirmed my long-held view of the growing importance of space 
to the nation and my belief that space management and organization 
reforms are urgently needed as America's commercial, civil, and 
military reliance on space assets expands. The Commission's 
recommendations lay the foundations for what I have said may be 
necessary--the eventual creation of a separate Space Force. These near-
term management and organization reforms will begin to put in place the 
leadership and advocacy for space programs that have long been lacking.
    The United States has shown the world the value of space in 
providing information superiority on the modern battlefield. As we move 
into the new century, we need to defend our space-based information 
superiority, be able to deny our adversaries that same capability, and 
leverage the uniqueness of space to be able to rapidly project military 
force around the world. We need a strong advocate for space to fight 
for and justify new space programs needed for the 21st century in 
competition with many other pressing military investment requirements. 
I salute your leadership on the Space Commission, and I am grateful for 
the knowledge and appreciation of the issue you will bring to your new 
office.
    Another of your many recent activities serving the nation was your 
chairing the 1998 Commission to Assess the Ballistic Missile Threat to 
the United States. The unanimous finding by that Commission served as a 
wake-up call to the nation and set us on a course that I hope will lead 
to a robust multilayered national missile defense capability in the 
near term.
    I thank you for your service to the nation and your willingness to 
take on the daunting task of Secretary of Defense again. I look forward 
to your testimony.
                                 ______
                                 
              Prepared Statement by Senator Rick Santorum
    Senator Levin and Senator Warner, thank you for scheduling this 
hearing today. I believe it is important that this committee do all 
that it can to assist the new administration on helping to address 
pressing issues facing our military forces. This confirmation hearing 
will help begin that process.
    Members of this committee are familiar with Secretary Rumsfeld from 
his service in the Legislative Branch, the Executive Branch and as a 
private citizen. Based on Secretary Rumsfeld's past record of service 
to this country, President-elect Bush has made a wise choice in 
nominating him to be our next Secretary of Defense.
    There are significant issues that the next secretary will be forced 
to confront. For example, there is the issue of military readiness. 
Five times, under the leadership of both Senator Thurmond and Senator 
Warner, this committee has examined the status of U.S. military 
readiness. To fully examine reports concerning the decline of military 
readiness, the committee received the testimony of the Service Chiefs 
and asked for their views on these reports.
    As you are probably aware, the Department of Defense's most recent 
Quarterly Readiness Report indicates that risk factors for executing 
ongoing operations and responding to a Major Theater War (MTW) are 
moderate, while risk for a second MTW is high. The committee also 
learned that of the Army's 20 schools for critical military skills such 
as field artillery, land combat and helicopter aviation, 12 have 
received C-4 ratings. The most recent readiness hearing confirmed what 
members of this committee suspected--that non-forward deployed forces 
are being ``raided'' for resources needed to maintain the readiness 
levels of our forward deployed forces.
    One of the biggest challenges facing the next secretary concerns 
the need to adequately fund not only our readiness accounts but also 
our modernization accounts. As chairman of the Subcommittee on Airland, 
I pay close attention to the modernization needs of the Services. I am 
troubled by a recent CBO report which notes, at a minimum, a $50.0 
billion disparity between the funds appropriated for fiscal year 2000 
and the level of funding needed to sustain our defense forces in a 
steady state. The largest gap identified by CBO concerns the funds 
needed to modernize our military. Under a worst case scenario, CBO 
identifies a gap as large as $62 billion between current funding and 
the funding needed to modernize at a ``steady state.''
    It will also be necessary to review and scrutinize those programs 
and weapons systems currently under development. This will be 
particularly important with respect to the development and procurement 
costs associated with three tactical aviation programs being pursued by 
the military Services. The total costs associated with developing and 
procuring the F-22 Raptor, F/A-18E/F Super Hornet, and Joint Strike 
Fighter will total upwards of $350 billion. It will be important to 
view the affordability of these programs against the full range of 
requirements facing the Department of Defense.
    In addition to the financial burden associated with our TACAIR 
programs, the Army has recently unveiled a new transformation 
initiative. In late 1999, General Eric Shinseki announced that the Army 
intended to embark on an effort to transform the Army to better respond 
to today's conflicts. The transformation process includes three 
elements: modernization of the current legacy force, establishment of 
rapidly deployable Interim Brigade Combat Teams (IBCTs), and research 
and development investments in the Objective Force.
    The Fiscal Year 2001 National Defense Authorization Act (NDAA) 
authorized $637 million for the fielding of the first IBCT, $300 
million to begin fielding the second IBCT and another $200 million for 
related equipment. The fiscal year 2001 NDAA also required an 
acceptable form of side-by-side test against the current inventory of 
armor vehicles as well as additional field trials to examine the IAV's 
conventional warfare capabilities against a conventional force.
    One of the concerns expressed by this committee has been a 
perceived reluctance on the part of the Office of the Secretary of 
Defense to support the Army's transformation effort with sufficient 
resources. In order to fund the effort for fiscal year 2001, the Army 
was required to terminate or restructure a number of important 
programs. Congress subsequently restored many of these cuts. It is 
unclear to this committee whether there are sufficient funds to support 
modernization of the legacy force, fielding IBCTs and R&D efforts on 
the Objective Force. It is essential that you review all aspects of the 
Army's plan--fielding schedule, resourcing, testing plan, threat 
assessment, acquisition plan and lift requirements--if you are 
confirmed by the Senate.
    An area of keen interest to this committee has been the need to 
protect our critical infrastructure from being attacked or compromised 
by enemies, terrorist organization or individuals.
    The committee has also been interested in seeing improved 
coordination between the public sector and private sector with respect 
to identifying threats to our critical infrastructure and in efforts to 
safeguard these important networks.
    As part of the fiscal year 2001 NDAA, the committee authorized 
funding for two important programs which will help address our current 
weakness in addressing ``cyber threats.'' First, the committee 
authorized $10.0 million for the creation of an Institute for Defense 
Computer Security and Information Protection to conduct research and 
technology development in the area of information assurance and to 
facilitate the exchange of information regarding cyber threats, 
technology, tools, and other relevant issues.
    Second, the committee authorized $15.0 million to support the 
establishment of a Information Security Scholarship Program. The 
program would authorize the Secretary of Defense to award grants to 
institutions of higher learning to establish or improve programs in 
information security and to provide financial assistance to persons 
pursuing a baccalaureate or advanced degree in information assurance. 
The Department's support for both these efforts is vital to address 
this critical problem.
    The Clinton administration elected to approach this problem with a 
government-sponsored entity, the Institute for Infrastructure 
Information Protection. Such an approach fails to capitalize on the 
abilities of our Nation's federally Funded Research and Development 
Centers (FFRDCs) to disseminate information on cyber threats, promote 
best practices to industry, and provide a safe meeting place for 
discussions about cyber threats. I hope that you will do all you can to 
tap the resources of these FFRDCs in helping to counter cyber threats.
    Again, Senators Levin and Warner, thank you for convening this 
hearing and I look forward to the testimony of Secretary Rumsfeld.
                                 ______
                                 
              Prepared Statement by Senator Tim Hutchinson
    Mr. Chairman, members of the Committee, Mr. Secretary, I regret 
that I could not attend today's hearing. President-elect Bush's 
decision to designate an individual as experienced and as capable as 
Don Rumsfeld to serve as our Nation's 21st Secretary of Defense sends 
an unmistakable signal that this Administration is committed to 
tackling the tremendous challenge of transforming our military from the 
force that defended our Nation during the Cold War to a force capable 
of deterring and winning the wars of the 21st century.
    While I look forward to working with the Secretary on all of the 
national security-related challenges facing this great nation of ours, 
I am particularly anxious to begin addressing a number of critical 
personnel issues. Implementation of the Warner/Hutchinson ``TRICARE-
for-Life'' plan must proceed carefully and expeditiously. Equitable 
compensation for senior enlisted members of our Armed Forces must be 
restored. New programs must be developed so that the men and women who 
choose to make a career of the military are able to provide college 
educations to their dependents.
    I am equally committed to working with the Secretary on a number of 
Arkansas-specific matters. Enhancing the continuing missions of Little 
Rock Air Force Base and the Pine Bluff Arsenal are two of the main 
reasons that my constituents sent me to Washington, DC, and I intend to 
continue to work every day to exceed their expectations.
    Mr. Secretary, I have every confidence that you will be able to 
satisfactorily answer all of the questions put to you by my colleagues, 
and I look forward to casting my vote in favor of your nomination. Good 
luck, and thank you for your continued dedication to public service.

    [Whereupon, at 5:05 p.m., the committee adjourned.]

    [Prepared questions submitted to Donald H. Rumsfeld by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                    January 9, 2001
The Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC
    Dear Mr. Chairman: Enclosed herewith are the answers to the policy 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                Donald H. Rumsfeld.
cc: Hon. John Warner
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. The establishment of the unified and specified combatant 
commands, the delineation of responsibilities, and most importantly the 
focus on ``jointness'' outlined in the Defense Reorganization Act of 
1986 has enhanced the readiness and warfighting capabilities of the 
U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I have had no personal experience with these reforms, but 
it is my understanding that these reforms have changed the way the 
Department of Defense works by strengthening the role of the Chairman 
of the Joint Chiefs of Staff and the combatant commanders, and 
significantly improving the ability of the Department to protect 
America's security and further its vital interests. It apparently has 
helped improve the interaction among the services in conducting 
military operations by making joint operations the norm.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The goals of Congress in enacting these reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; enhancing the effectiveness of military 
operations; and improving the management and administration of the 
Department of Defense.
    Question. Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation. But it must be said that 
they represent a tall order.
    Question. Do you anticipate submitting legislative proposals to 
amend Goldwater-Nichols?
    Answer. If confirmed as Secretary of Defense, I will review the 
extent to which the reforms have been implemented to assess the extent 
to which they have achieved the stated goals. I would consult with 
Congress on any changes that might be appropriate.
    Question. If so, what areas do you plan to address in these 
proposals?
    Answer. It would be premature to offer any thoughts at this time.
                                 duties
    Question. Section 113 of Title 10, United States Code, provides 
that the Secretary of Defense is the principal assistant to the 
President in all matters relating to the Department of Defense. Subject 
to the direction of the President, and the law, he has authority, 
direction and control over the Department of Defense.
    Do you believe there are actions you need to take to enhance your 
ability to perform the duties of the Secretary of Defense?
    Answer. I suspect there are, but I am not in a position to comment 
today. If I determine that additional authorities are needed in this 
regard, I will propose such changes.
    Question. Do you believe that you can provide advice to the 
President, or the NSC, in disagreement with or in addition to the 
advice of the Chairman without jeopardizing your relationship with 
General Shelton?
    Answer. Yes without question. The relationship between the 
Secretary of Defense and the Chairman of the Joint Chiefs of Staff is 
important. I have had highly constructive relationships in the past 
and, if confirmed, I believe we both will be able to effectively 
fulfill our responsibilities in support of the President.
                            chain of command
    Question. Section 162(b) of Title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Section 163(a) of Title 10 further provides that the President may 
direct communications to combatant commanders be transmitted through 
the Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and Secretary in performing their 
command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. I do not know. I assume it does. I will be interested to 
see how it works in practice.
    Question. Do these provisions enhance or degrade civilian control 
of the military?
    Answer. I would have to work with them to know.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Department of Defense?
    Answer. Our responsibility will be to take the lead in fulfilling 
President-elect Bush's commitments as set forth in my opening statement 
to the committee. I will insist that the Department cooperate with 
Congress and with the defense oversight committees. To the American 
people, I pledge every effort to foster special concern for those who 
have volunteered to serve in uniform--including the guard and reserve 
as well as the active forces--and to achieve careful management of 
their tax dollars. For America's Armed Forces, I will do all in my 
power to give our military men and women every advantage in fulfilling 
their difficult missions.
    Regarding more specific priorities or objectives, I will work to:

        1. Fashion and sustain deterrence appropriate to the new 
        national security environment;
        2. Ensure the readiness and sustainability of deployed forces;
        3. Transform U.S. military forces from a Cold War-oriented 
        force to a 21st century force capable of deterring and 
        defeating new threats;
        4. Modernize the intelligence and command-control-
        communications-infrastructure and secure our space assets given 
        the growing dependence on those assets and their 
        vulnerabilities; and
        5. Reform DOD structures, processes, and organizations.
                         u.s. defense strategy
    Question. The essence of present U.S. defense strategy, as 
articulated in the Secretary of Defense's Annual Report to the 
President and Congress, is defined as consisting of three elements--
shaping, responding, and preparing.
    Do you agree with that defense strategy?
    Answer. See response below.
    Question. If not, what defense strategy would you substitute for 
it?
    Answer. Determining what an appropriate defense strategy should be 
is one of the most important issues that will need to be addressed by 
the Department. From defense strategy flows policies, programs, and 
resource requirements. The U.S. must have a national security strategy 
that seeks to advance U.S. national interests and to have a positive 
impact on world events without the need to resort to armed force. It is 
important that we shape and prepare the Armed Forces to respond to 
whatever national security challenges may confront us--this is the 
essence of deterrence. External events sometimes are outside our 
control. Therefore, we must ensure that the military has the tools it 
needs to fight and win, should that be necessary.
    If confirmed, the defense strategy would recognize that peace is 
best preserved when the U.S. remains strong. By providing for a 
military that is second-to-none and equipped to meet the newer 
challenges of the 21st century, I believe we can best ensure a peaceful 
strategic environment that advances U.S. national security interests 
and those of our friends and allies.
                       quadrennial defense review
    Question. The Quadrennial Defense Review is required to be 
submitted to Congress by September 30, 2001.
    Will that deadline provide sufficient time for the new 
administration to develop required changes to national security 
strategy on which the Quadrennial Defense Review will be based?
    Answer. No I do not believe it will. We intend to undertake a 
comprehensive review of strategy, forces, and capabilities as 
prescribed by law and will consult with Congress should the deadline 
prove to be overly burdensome.
    Question. How will you keep the committees of jurisdiction informed 
during the conduct of the QDR?
    Answer. I do not know precisely but I will consult with 
congressional leadership and request staff to keep the committees 
appropriately informed as the review progresses.
    Question. During the past decade, the military departments have 
been reduced significantly, both in terms of force structure and 
resources, in response to the perceived post-Cold War security 
environment. During the same period, the various Defense Agencies have 
grown considerably--a prudent investment in some eyes, but a 
questionable investment to others.
    How will you include the Defense Agencies in the overall QDR 
process?
    Answer. If confirmed, the Department will undertake a comprehensive 
review of our strategy, forces, and capabilities that addresses all 
elements of the Department.
    Question. Do you envision a separate process to review the Defense 
Agencies, apart from the review of the military departments?
    Answer. I have not considered the shape of the review process.
 hart-rudman commission. the 21st century national security study group
    Question. The Hart-Rudman Commission, the 21st Century National 
Security Study Group Phase 3 report is scheduled to be completed by 
February 2001 to recommend alternatives to the current national 
security apparatus and suggest ways to implement the proposed national 
security strategy.
    What process and organization do you intend to use to review the 
report and do you intend to use the results to influence the 
Quadrennial Defense Review?
    Answer. The U.S. Commission on National Security/21st Century, 
commonly known as the Hart-Rudman Commission, is composed of a group of 
prominent Americans drawn from all sectors of society, well suited to 
examine American national security in the 21st century. I fully expect 
the commission's phase 3 report to stimulate significant thought and 
discussion inside and outside of government and contribute to the 
ongoing national security debate and the new administration's defense 
review.
                   two major theater wars requirement
    Question. The present requirement to have the capability to fight 
and win two major theater wars in overlapping time frames is extremely 
demanding. Some argue that as long as that requirement exists, our 
Armed Forces will have to be sized in such a way as to address the 
least likely contingency with short shrift given to any preparation for 
other lesser contingencies and for emerging threats.
    Do you believe the two major theater wars requirement should be 
maintained?
    Answer. Modern history suggests that the U.S. has often faced more 
than one security contingency at a time. With that history in mind, 
preparations are appropriate. The manner in which the U.S. responds to 
two near-simultaneous contingencies is an issue of military strategy 
and operations and the adequacy of available resources at the time. 
This issue should be examined in the upcoming strategy review.
    Question. If so, how do you respond to the above argument?
    Answer. The consequences of not being prepared to fulfill the 
military's primary mission of deterring war and winning war if 
deterrence fails would be devastating. The U.S. military must also be 
able to deal with emerging threats. If confirmed, I will work to 
restructure our military to meet 21st century threats.
                            strategic pause
    Question. Some have argued for taking a strategic pause now in 
modernization programs, accepting some modest risk in the near-term 
when we have no peer competitor, while making more fundamental shifts 
for dealing with challenges we will face in the future. During the 
campaign, President-elect Bush endorsed skipping procurement of a 
generation of weapons systems.
    What is your view on this issue and, if confirmed, how would you 
proceed in implementing your view?
    Answer. We cannot allow the effectiveness of our military forces to 
degrade while we are modernizing and transforming. The U.S. military 
needs to get on a new path that will permit the rapid introduction of 
advanced technology that can materially increase military effectiveness 
and decrease the cost of operating and maintaining those forces. The 
cost of maintaining Cold War era equipment and its associated 
infrastructure and the steep reduction in modernization funding since 
the end of the Cold War has produced long-term modernization problems 
that must be addressed. If confirmed, I will conduct a comprehensive 
review of our military structure, strategy and procurement priorities, 
as promised by President-elect Bush. This review should help to 
determine how best to modernize the U.S. military to deal with future 
challenges.
                       when to use military force
    Question. The question as to whether and when U.S. forces should 
participate in potentially dangerous situations, including peace 
enforcement operations, is one of the most important and difficult 
decisions that the national command authorities have to make. Prior 
Secretaries of Defense and Chairmen of the Joint Chiefs of Staff have 
proposed criteria to guide decision making for such situations.
    What is your criteria for such situations?
    Answer. The use of military force is one of the most important 
decisions a President can take. If confirmed, I would work closely with 
the President and his senior advisors to develop appropriate policies 
to guide the use of our military forces in peacetime, crisis, and war.
    Question. If you have not developed such criteria, what are the 
factors that you believe are most important with regard to such 
decisions?
    Answer. My general views are these: A decision to use military 
force, whether unilaterally or in coalition with other nations, should 
reflect important U.S. national security interests. The U.S. structure 
of alliances and its diplomatic ability to build informal, but 
effective regional coalitions provides the President with a variety of 
options to bring military power to bear in a specific situation where 
U.S. interests are involved. U.S. military forces can best be used when 
the military mission is clear and achievable and when there is a 
reasonable exit strategy. I look forward to working the President and 
his national security team on the details of this important question in 
the weeks ahead.
                     participation in peacekeeping
    Question. Some have taken the position that the United States 
should not generally participate in peacekeeping in view of the 
negative impact that such activities have on certain warfighting 
skills, and the fact that the U.S. Armed Forces' primary mission is 
fighting and winning our Nation's wars. Others have taken the position 
that participation in peacekeeping operations is in our Nation's 
interest and strengthens U.S. leadership and that such actually 
improves certain warfighting skills, such as leadership skills.
    What is your view on the participation of U.S. forces in 
peacekeeping operations?
    Answer. Clear criteria for the use of U.S. military forces should 
be established prior to U.S. participation in specific peacekeeping 
operations. There should be clear objectives, a coherent strategy to 
achieve them, a reasonable chance of success, acceptable command and 
control arrangements, and an exit strategy. When the main burden of the 
U.S. presence shifts to infrastructure and nation-building, however, we 
are into missions that are not appropriate for the U.S. military.
                               jointness
    Question. It became apparent during this year's debate on defense 
needs that our military deployments have increased dramatically in the 
past decade at the same time our force structure and resources have 
declined, increasing the tempo on our military personnel and equipment. 
To the consternation of many, including members of this committee, we 
seem to encounter the same significant problems with meaningful joint 
operations and interoperability of our Armed Forces during each 
significant military operation. Most notably, the armed services 
continue to be hampered by communications systems, information 
management systems, and other capabilities that are often not 
interoperable and sometimes redundant. This committee has expended 
considerable time on these issues, but continues to observe problems in 
the development and fielding of interoperable systems and concepts.
    How do you propose to remedy these recurring shortcomings?
    Answer. Interoperability among our forces is an issue which I 
believe demands immediate attention. Interoperability should be 
addressed as new systems are conceived, not simply after they are 
fielded. I believe we should devote significant efforts to solving the 
warfighter's problems in the field as identified by the CINCs, 
including from experiences in Kosovo, Bosnia, and Desert Storm.
    Question. In your opinion, do our experimentation, requirements 
generation, and acquisition processes need significant reform? If so, 
how would you propose to reform these processes?
    Answer. If confirmed, I will undertake a review of these processes, 
with a special emphasis on innovation and streamlining, and will report 
the results of that review to Congress. My current impression is that 
the process is mired in unrealistic requirements that unnecessarily 
delay the time from concept to deployment at a time when technology is 
leaping ahead. Because of the lengthy acquisition process and the rapid 
advances in technology, we may have driven ourselves into a position 
that is guaranteed to produce technologically obsolete equipment the 
day it is deployed.
                           national security
    Question. Most agree the most significant near-term threat to our 
national security is not from a military peer competitor, but from 
transnational, ideological groups that may attempt to employ some type 
of weapon of mass destruction within the United States.
    How would you assess our preparedness to respond to such a 
situation?
    Answer. I am advised that the U.S. government is spending more than 
$11 billion to deal with terrorist threats that might be posed by 
transnational or ideological terrorists, including the use of weapons 
of mass destruction. While some impressive results have been achieved 
from this considerable effort, my preliminary impression is that more 
remains to be done, particularly with respect to the role of the 
Department in providing for homeland defense as well as for defense of 
U.S. facilities overseas.
    Question. What adjustments would you recommend, if confirmed, to 
our national security mechanisms to ensure the collective, accountable 
cooperation of all appropriate agencies?
    Answer. I am not prepared at this time to recommend adjustments. 
While the response to the transnational terrorist threat to the U.S. 
has been well supported the distribution of resources, programs, and 
leadership over numerous Federal agencies has posed significant 
coordination problems. Greater coordination and interagency leadership 
is needed to assure an effective U.S. government response to this 
threat.
    Two areas of particular interest to me are space and intelligence. 
Each would benefit from more senior level leadership and closer 
coordination between the Secretary of Defense and the DCI.
                             transformation
    Question. The December 1997 Report of the National Defense Panel, 
titled ``Transforming Defense: National Security in the 21st Century,'' 
contained the following statements: ``The Defense Department should 
accord the highest priority to executing a transformation strategy. 
Taking the wrong transformation course (or failing to transform) opens 
the nation to both strategic and technological surprise. Transformation 
will take dedication and commitment--and a willingness to put talented 
people, money, resources, and structure behind a process designed to 
foster change. Greater emphasis should be placed on experimenting with 
a variety of military systems, operational concepts, and force 
structures. The goal is to identify the means to meet the emerging 
challenges, exploit the opportunities, and terminate those approaches 
that do not succeed.'' And: ``At the core of the effort should be a 
much greater emphasis on jointness, building upon the legacy of 
Goldwater-Nichols.''
    Do you agree that there is a need to transform the U.S. Armed 
Forces into a very different kind of military from that which exists 
today?
    Answer. Yes. Our current force structure will be sorely challenged 
by asymmetric threats and the growing ability of both state and non-
state actors to deny access to critical forward bases and lines of 
communication. We have the opportunity now to critically evaluate both 
our force structure as well as how we organize and employ our forces. 
Lessons learned from previous operations suggest the need for 
improvement in the areas of intelligence, rapid deployment and 
employment, decisive operations across the spectrum of conflict, 
streamlining of logistics, and improvements in the C\4\ISR capabilities 
and architectures.
    Question. Do you agree that experimentation, particularly joint 
experimentation, is essential to successfully achieving such a 
transformation?
    Answer. Yes. Joint experimentation is essential in ensuring that 
operations, doctrine-related activities, and acquisition are more fully 
explored from inception to delivery/implementation. Our concept should 
be to field systems and develop capabilities that are ``born joint.'' 
An essential step in helping to ensure that new capabilities are ``born 
joint'' and work is through experimentation. We must avoid radios 
usable by only one service, service-specific software, and procedures 
that are peculiar to one community or service. Transformation involves 
more than merely new weapons systems. Rather, it is a process of 
reorganization and reform that can best be validated through joint 
experimentation.
    Question. Over the last year, we have seen the Army begin a process 
to transform the service into a force that will be able to deal with a 
wide range of anticipated 21st century national security challenges. 
The Navy and Air Force have also begun to explore opportunities to 
initiate transformation processes to keep current with evolving defense 
challenges. These efforts demonstrate a recognition that fundamental 
change is necessary if they are to remain viable over the next 20-30 
years.
    Are you at all concerned that these initiatives appear to be ``self 
defined'' by the services without direct participation of the Secretary 
of Defense or the Chairman, Joint Chiefs of Staff?
    Answer. I am told that a structure is in place in which JFCOM was 
designated the lead for joint force integration and for joint force 
training. While I am not familiar with it, I intend to assess the 
effectiveness of the current arrangement.
    Question. Should the Department of Defense play a role in steering 
or guiding individual service efforts? If so, how?
    Answer. Yes. Service initiative is invaluable. However, if forces 
are to fight jointly in the field, transformation must be conducted as 
a joint endeavor. Only then can the Services' specific cultures and 
capabilities likely to be forged into a joint cooperative endeavor.
                          army transformation
    Question. The Army has begun a process for transforming itself into 
a lighter, more agile force that will be able to deal with the 
challenges posed by threats in an uncertain future.
    Do you believe that the Department should support the Army's 
current transformation plan even if it means diverting resources from 
other Services' investment programs to pay for it?
    Answer. I cannot answer this without an analysis of all the 
Services' investment programs. But I can say this: I believe that the 
Secretary of Defense should seek an allocation of resources that is 
best for the overall defense posture--that gives priority to funding 
the most pressing requirements. The transformation of our Armed Forces 
will be a high priority. But before recommending major changes in the 
allocation of investment funding--which Congress has recently 
approved--I intend to assess what new capabilities are being sought and 
the soundness of programs advancing those capabilities and their impact 
on deterrence and warfighting capabilities.
    Question. What is your view of the appropriate role that 
experimentation, including joint experimentation, should play in 
directing the Army's efforts in modernizing the legacy force, fielding 
an interim force, and developing the objective force?
    Answer. Army Transformation must be coherent with evolving joint 
operational doctrine, and that doctrine will only emerge through joint 
experimentation. I see experimentation playing an important role. But 
let me be clear: experimentation will yield changes in course, exhibit 
failures of expectations, or even reveal past mistakes. We must be 
careful to learn from experimentation, and acknowledge the risks it 
reveals.
    Question. Do you believe that the current Air Force and Navy 
strategic mobility programs will support the Army's transformation 
goals for strategic agility? If not, what changes do you believe should 
be made in those programs?
    Answer. My preliminary impression is that we need to make 
improvements in our strategic mobility capability. As we transform the 
forces, we will need an appropriate strategic sea/airlift fleet.
                           budget priorities
    Question. During the 106th Congress, both Congress and the 
administration placed the highest priority on increasing pay and 
compensation for military personnel and health care benefits for 
retirees, and on improving housing for military families.
    If you are confirmed, what will be your highest priorities for 
increased funding over and above financing the unfunded cost of these 
previously enacted benefit increases?
    Answer. First, preserving the high quality of our military 
personnel and restoring their morale. We need to spend what is needed 
to compensate military people fairly and ensure a competitive quality 
of life for them and their families. In this tight U.S. labor market 
for highly-skilled professionals, we must spend enough to attract and 
retain people with the skills required for the technically 
sophisticated Armed Forces. Also important is good military health 
care, housing, and other quality of life contributors. I would review 
the progress made in recent years and decide if further improvements 
are needed. President-elect Bush has signaled that taking care of our 
military people is a top priority with his pledge to increase pay for 
the Armed Forces. Second, readiness. I would look for areas where 
increased funding is needed for training, maintenance, and other 
readiness essentials--there are also important quality of life 
considerations. I also would consider actions to prevent indirect 
threats to readiness--that is, to prevent funding shortfalls that could 
result in funds being diverted from readiness accounts. Third, future 
capabilities--focused on ballistic missile defense and modernization of 
air, sea, land, intelligence, and space capabilities. These areas are 
complex, and I will likely not complete an assessment of where best to 
put added funding until the defense review is completed. I hope to have 
identified some immediate funding needs in time to include in the 
fiscal year 2002 budget submission, and possibly in a fiscal year 2001 
supplemental.
    Question. As Secretary you would be called on to make tough 
decisions in many areas, one of which would be funding priorities. What 
areas in the defense budget represent your highest priorities for 
additional resources?
    Answer. Again, the highest priorities would be people, readiness, 
and future capabilities. It is important to ensure that we are taking 
good care of our people, both now and for the future; and to seek the 
proper balance between current readiness and investment in the high-
tech capabilities to ensure our future superiority in all security 
realms--with special attention to the threats of this post-Cold War 
period. Over the past few years I have been focused on the issues of 
ballistic missile defense, America's security posture in space, and 
intelligence. If confirmed, these would certainly be high priorities.
    Question. There are an increasing number of studies from outside 
the administration, in addition to the Joint Chiefs, which indicate 
that current and projected levels of defense spending will be 
inadequate to meet U.S. national security requirements as they are 
currently stated.
    What is your view of these and other studies, and will you seek 
additional funding for defense?
    Answer. I agree with the conclusion that projected defense spending 
levels are inadequate to meet U.S. national security requirements as 
they are currently stated. President-elect Bush has expressed the same 
conclusion. If confirmed I would direct a study to specify exactly 
where inadequacies lie, where savings could be achieved to help address 
those inadequacies, and what additional funding may be required.
             readiness for most likely military operations
    Question. The Army has been exploring changes to the way readiness 
is measured due in part to confusion in some recent deployments where 
units were assessing themselves and reporting against one set of 
requirements while they were undertaking a different mission at the 
time.
    Do you believe the readiness reporting system should be made more 
comprehensive so that it measures our units not only against the most 
demanding requirements contained in the national military strategy but 
also assesses the performance of those units in the real world missions 
directed by the national command authorities?
    Answer. The question ``ready to do what?'' is a good one. The 
current system centers on our readiness for high intensity combat 
operations, such as a major theater war, and provides broad indicators 
of readiness status ranging from personnel to equipment. I understand 
that planning is underway for a number of improvements to the existing 
reporting system, in both the near and longer term.
    Question. Over the last few years many have agreed that we have 
seen increasing evidence that the readiness of the U.S. Armed Forces 
has begun to deteriorate as a result of the over-commitment of an 
under-resourced Department of Defense.
    What do you view as the major readiness challenges that will have 
to be addressed by the Bush administration, and, if confirmed, how will 
you approach these issues?
    Answer. There are a number of readiness challenges that must be 
addressed. These include the classic ``unit readiness'' concerns of 
robust manning, functioning equipment, and realistic training. 
Warfighting commanders have to have the assets to synchronize and use 
their units in effective joint and coalition forces. National Guard and 
Reserves have a number of unique challenges in meeting their mission 
requirements upon deployment that require immediate address.
    Some of the more pressing concerns lie in the condition of 
equipment, or more broadly, the materiel readiness of the forces. 
Problems include higher-than-planned use, inadequate spare parts 
inventories, and recruiting and retaining highly skilled personnel.
    Joint readiness requires effective command, control, 
communications, and computer (C\4\) systems; robust intelligence, 
surveillance, and reconnaissance (ISR) systems; sufficient lift to 
mobilize forces and equipment; and healthy logistics practices and 
sustainment stocks. The U.S. needs to be better prepared for the 
growing threats posed by terrorism, weapons of mass destruction (WMD), 
threats to critical information and other infrastructure systems, and 
vulnerable space assets. As we review our National Military Strategy in 
the Quadrennial Defense Review, these concerns must be addressed.
                              encroachment
    Question. Some of the most significant issues that will impact the 
readiness of the Armed Forces as we enter the 21st century could be 
categorized as outside encroachment upon military resources. This 
encroachment includes environmental constraints on military training 
ranges, local community efforts to obtain military property, airspace 
restrictions to accommodate civilian airlines, transfer of radio 
frequency spectrum from the Department of Defense to the wireless 
communications industry, and many others. Unless these issues are 
effectively addressed our military forces will find it increasingly 
difficult to train and operate at home and abroad.
    In your opinion, how serious are these problems?
    Answer. This is an important issue. The myriad forms of 
encroachment ranges face threaten to complicate and in some cases 
severely restrict the ability to conduct critical training. The number 
of external pressures is increasing and the readiness impacts are 
growing. We need to address these issues in a more comprehensive and 
systematic fashion. It will be important to work with regulators, 
special interests, other federal agencies, and communities to more 
clearly define the issues from all viewpoints. We must anticipate 
pressures and reach acceptable, timely solutions, whenever possible. We 
will also need to address the issues raised by the transfer of radio 
frequency spectrum from DOD to the wireless communications industry.
    Question. If confirmed, what efforts will you take to ensure that 
military access to these specific, and other required resources, will 
be preserved?
    Answer. The Department's approach should be comprehensive and 
balanced, supporting test and training and operational requirements, 
while seeking to protect the natural environment and operating within a 
balanced regulatory framework. Modernizing instrumentation is central 
to efforts to make DOD ranges sustainable. Live training is expensive. 
Improved range instrumentation can increase the return on investment 
by: expanding the battle space and creating a more realistic warfare 
environment; providing improved learning by better feedback; and 
reducing the impact on the environment by substituting simulated 
engagements. All Services are experiencing deterioration of training 
range infrastructure, which will require recapitalization. I am advised 
that the Senior Readiness Oversight Council recently directed a broad-
based effort to counter encroachment and protect the future capability 
of ranges to support required training and testing. The goal is to 
maintain fully sustainable ranges. A comprehensive approach is needed 
to satisfy both readiness needs and the legal and moral 
responsibilities as stewards of public lands.
                  outsourcing of commercial activities
    Question. Over the past several years the Department of Defense has 
increased its reliance upon the private sector to perform certain 
activities including equipment maintenance and facility operations. 
Some have supported this effort while others have expressed concern 
that core activities are being jeopardized by reducing our reliance 
upon military personnel and civilian employees of the Federal 
Government.
    What approach would you recommend to balance maintaining military 
necessary capabilities and outsourcing?
    Answer. The size and composition of DOD's facilities to perform 
equipment maintenance is an important aspect of the overall readiness 
of the Armed Forces. The appropriate balance between government and 
private sector facilities must be struck in a manner that assures the 
equipment employed by the Armed Forces will be ready for use when 
needed. This balance in turn will be affected over time by the nature 
of the technology used in military equipment. A balance will be 
reviewed to assure that capabilities essential to national defense that 
cannot reliably be provided by the private sector will be provided by 
the government sector. Moreover, critical capabilities will be 
maintained in the government sector.
                           counter-narcotics
    Question. The U.S. Government has initiated a massive assistance 
program to the Government of Colombia to regain control of its 
territory in an effort to stem the production of cocaine and other 
narcotics that are sent to the United States. The Department of Defense 
is playing a particularly significant role in this program by training 
and providing resources to the Colombian Armed Forces. This program, 
Plan Colombia, has come under criticism as expensive and misdirected 
and, some allege, will contribute to the abuse of human rights and lead 
the U.S. military into ``another Vietnam.''
    What is your view with regard to Plan Colombia--its potential for 
success and the appropriate role of the U.S. Armed Forces?
    Answer. I have less than well-informed personal views which I 
prefer to discuss with the appropriate officials before taking a public 
position.
                          combating terrorism
    Question. The Floyd D. Spence National Defense Authorization Act 
for Fiscal Year 2001 (sec. 901) requires the Secretary of Defense to 
designate an Assistant Secretary as the individual responsible for 
providing ``overall direction and supervision for policy, program 
planning and execution, and allocation and use of resources for the 
activities of the Department of Defense for combating terrorism.''
    If confirmed, what are your plans for implementing this legislation 
and any other plans you have for streamlining and providing more focus 
on the Department's combating terrorism programs?
    Answer. I am aware of the Section 901 language requiring the 
designation of an Assistant Secretary of Defense for the Department's 
combating terrorism activities. I share the committee's concerns with 
providing an appropriate focus for combating terrorism. If confirmed, I 
would hope to review the current organizational structure. I would of 
course inform Congress as implementing decisions are made.
    Question. In recent years, there have been numerous congressional 
proposals to establish a National Coordinator for Combating Domestic 
Terrorism. The proposals have ranged from establishing a position 
similar to the current ``Drug Czar'' to creating a Deputy Attorney 
General for Combating Domestic Terrorism.
    Would you have concerns with such an individual having budgetary 
and policy responsibilities over certain Department of Defense 
combating terrorism programs?
    Answer. The many activities associated with combating terrorism, 
domestically and internationally, need to be coordinated. Combating 
terrorism is a complex issue involving the expertise and statutory 
authorities of many departments and agencies. I would be concerned with 
proposals that could limit the Department's ability to fulfill its 
responsibilities. I would need to know more than I do now to have 
conclusions about such proposals and provide the committee with my 
appraisal.
    Question. Do you have any suggestions as to what type of a 
position, and its responsibilities, should be established to better 
coordinate our Nation's combating domestic terrorism efforts?
    Answer. I would need some time to be prepared to make a 
recommendation.
                       tactical fighter programs
    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the set of programs to modernize 
our tactical aviation forces, including the F-22, the F/A-18E/F, and 
the Joint Strike Fighter (JSF). The Congressional Budget Office has 
estimated that these three programs will consume over $300 billion of 
our investment resources over the next 20 years. Some have said that we 
need to cancel or truncate one or more of these programs in order to 
afford other high priority modernization efforts, such as Army 
transformation, or recapitalizing the Navy's fleet.
    What are your views on the requirements for and timing of these 
three programs?
    Answer. The modernization of U.S. tactical fighter programs is of 
immense importance to the maintenance of U.S. military superiority. It 
is costly, and deserves a careful review. The requirements and timing 
of the tactical fighter programs will be a subject in the defense 
review.
                              b-2 bombers
    Question. Do you favor restarting production of B-2 bombers?
    Answer. Long-range bombers are a crucial national military 
capability providing timely worldwide reach to American military power. 
As is the case with tactical fighters, the bomber modernization 
requirement needs to be reviewed in the forthcoming defense review. 
Before such a decision could be made, one would have to look at the 
overall cost and the impact on other programs, and how that cost would 
compare to fielding other weapon delivery systems, including stand-off 
missiles that could perform or contribute to the same or similar 
missions. One would also likely look at whether more B-2s would be more 
effective than additional upgrades and improvements to the current 
bomber force structure of B-2, B-1, and B-52 aircraft.
                              v-22 program
    Question. Do you believe that the V-22 program should move to full 
rate production now, should substantial additional operational testing 
be conducted, or is the Department pursuing a flawed program for which 
another alternative should be adopted?
    Answer. The two recent crashes of the V-22 which have resulted in 
loss of life are disturbing. I have read that the Department is 
reviewing the program in light of these incidents. I have no 
conclusions at this time.
                             strateic lift
    Question. One of the shortfalls most consistently identified by 
Commanders-in-Chief in written and oral testimony has been in the area 
of the required strategic lift to support the National Military 
Strategy. Study after study has confirmed this shortfall, yet the 
shortfall remains.
    What steps would you propose to address this deficiency?
    Answer. Strategic lift is a key element of U.S. military power 
because of our dependence on the ability to conduct expeditionary 
campaigns to defend U.S. interests and those of our friends and allies. 
Depending on the airlift requirement established, there are several 
options to be considered. The question of strategic lift will need to 
be addressed in the defense review.
                             nato expansion
    Question. The United States will face a decision on the addition of 
new members to the NATO Alliance by the 2002 NATO summit meeting.
    What are your views on continued NATO expansion?
    Answer. As former Ambassador to NATO, I have great respect for the 
value of the NATO Alliance. It has been the key instrument in keeping 
the peace in Europe for over 50 years. The key factor in considering 
future NATO expansion is whether or not expansion will enhance U.S. and 
NATO security. I believe it is important that the broadening of NATO 
membership preserve the alliance's capacity for effective collective 
action. This suggests that new members should share the democratic 
values of the alliance and be prepared to make the necessary 
investments in the creation and maintenance of effective and 
interoperable military forces.
    It is my understanding that Allied leaders agreed to ``review'' the 
issue of enlargement at their next summit, to be held no later than 
2002. This is an issue that will need to be addressed by the President 
and his national security team.
                review of overseas military deployments
    Question. In an address to the Citadel in September 1999, then-
Governor Bush said that he would order an immediate review of U.S. 
overseas military deployments worldwide. According to the Governor, 
``the problem comes with open-ended deployments and unclear military 
missions.''
    In conducting this review, what factors will you use to determine 
continued U.S. military participation in on going overseas deployments?
    Answer. A decision to employ U.S. military forces in support of our 
national interests is one that should never be taken lightly. Likewise 
the decision to sustain, reduce, or end the commitment of U.S. forces 
to on-going operations must be informed by careful assessment and 
deliberation. If confirmed, I will assist the President and his senior 
advisors in reviewing these matters, preferably in a way that does not 
create unnecessary uncertainties and difficulties for those responsible 
for managing such operations.
                  european security and defense policy
    Question. The European Union (EU) is working to implement its 
European Security and Defense Policy (ESDP) to enable the EU to take 
decisions and, where NATO as a whole is not engaged, to launch and 
conduct EU-led military operations in response to international crises. 
Secretary Cohen recently warned our European allies that NATO could 
become ``a relic of the past'' if ESDP is not implemented in a way that 
will strengthen the NATO Alliance. Members of Congress have expressed 
similar concerns.
    What are your views on the EU's ESDP?
    Answer. I share these concerns. A free and democratic Europe is a 
vital security interest for the United States. The transatlantic 
alliance has proven to be the most effective instrument of collective 
military action in history. Coming at a time of historically low levels 
of investment and public interest in defense matters in Europe, the 
ESDP could pose a resource-diversion risk to NATO, and in doing so, 
undermine the ability of NATO to undertake effective collective 
defense. The U.S. and our NATO allies need to assure that any ESDP 
would not diminish the effectiveness of the NATO alliance.
    Question. What actions do you believe the EU should take in 
implementing ESDP to address the concerns expressed by Secretary Cohen 
and others?
    Answer. The task is to preserve the integrity of NATO as the 
primary instrument of transatlantic security. It will take active U.S. 
leadership at both the bilateral and multilateral levels to ensure that 
any ESDP does not diminish the effectiveness of the NATO alliance.
    Question. Do you believe that ESDP is, or could be, a threat to the 
NATO Alliance?
    Answer. It could, potentially. But we need to work with our allies 
to make sure that it does not.
                      international criminal court
    Question. The United States signed the Rome Treaty on the 
International Criminal Court on December 31, 2000, the deadline 
established in the Treaty. The decision to sign, despite concerns about 
significant flaws in the Treaty, was to put the United States in a 
position to influence the evolution of the Court.
    What are your views on the Rome Treaty?
    Answer. I oppose the Treaty. The Rome Statute has deficiencies that 
expose U.S. personnel to certain risks. We must be concerned about the 
exposure of U.S. personnel to politically motivated prosecution. I 
favor rejecting the assertion of the ICC's purported jurisdiction over 
non-party states.
    Question. The Pentagon has been very concerned that the court could 
claim jurisdiction over American service members and officials, even if 
the U.S. has not ratified the treaty.
    Do you share those concerns with regards to the ICC?
    Answer. Yes. See my comments above.
                        national missile defense
    Question. President-elect Bush has stated his support for deploying 
a robust National Missile Defense (NMD) system ``at the earliest 
possible date'' to protect the United States and its allies.
    Will you only consider deploying the NMD system currently under 
development, or will you consider alternative systems and architectures 
for deployment?
    Answer. I believe it would be good to examine alternative and 
complementary architectures to the NMD system currently under 
development. In doing so, a number of factors would need to be 
considered, including the urgency of the ballistic missile threat to 
the United States, U.S. forces deployed overseas, and our friends and 
allies, as well as the technical feasibility, cost, and deployment 
schedule for potential alternatives.
    Question. If you consider alternatives, they are likely to take 
longer to develop, test, and deploy than the system currently under 
development, perhaps considerably longer.
    Are you willing to wait until after 2010 to deploy a system if its 
development takes that long, or will you only consider systems that can 
be deployed during this decade?
    Answer. President-elect Bush is committed to deployment of an 
effective NMD at the earliest possible date. This commitment is based 
on the need to protect the American people against long-range missile 
threats that can evolve rapidly and with little or no warning. I agree. 
However, this does not mean we will foreclose alternatives that could 
be deployed after 2010, particularly if they can provide increased 
effectiveness or would address uncertainties in the evolution of the 
long range missile threat
    Question. The Bush administration and the Clinton administration 
both pursued development of a limited NMD system to defend against 
limited attacks. Then-Governor Bush wrote in May 2000, of the need for 
missile defense against ``missile attacks by rogue nations or 
accidental launches.''
    Will you pursue an NMD system designed to defend against such 
limited attacks, or will you pursue an NMD system designed to defend 
against all Russian and Chinese ballistic missile systems?
    Answer. If confirmed, I would plan to review the various 
alternatives to defend us and our allies against ballistic missile 
attacks by rogue nations as well as accidental or unauthorized 
launches.
    Question. The Clinton administration adopted four criteria for 
determining whether to deploy an NMD system: (1) the existence of a 
threat that warrants deployment; (2) an NMD system that is 
operationally effective; (3) an NMD system that is affordable and cost-
effective; and (4) an assessment of the impact of deployment on our 
relations with other nations and on nuclear arms control and non-
proliferation efforts. The overall focus of these criteria was to 
determine whether deployment would make the United States more or less 
secure.
    What will be your criteria for determining whether deploying an NMD 
system will make us more or less secure?
    Answer. The incoming administration has not issued a specific set 
of criteria. However, the President-elect has stated his support of the 
deployment of an NMD system as soon as possible. This is founded in a 
belief that an effective NMD systems will make us more secure.
    Question. Since you chaired the Commission to Assess the Ballistic 
Missile Threat to the United States in 1998, have your judgments 
changed regarding the nature and scope of the ballistic missile threat?
    Answer. No. The threat to the U.S. posed by emerging ballistic 
missile capabilities is broader, more mature, and evolving more rapidly 
than had been previously estimated.
    Question. The current NMD program being developed by DOD is focused 
on the deployment of a single ground-based site in Alaska in the 2005-
2007 timeframe. Some have advocated either substituting a sea-based NMD 
system for the ground-based program or adding sea-based systems as 
adjuncts to the ground-based system.
    What role do you believe sea-based systems might have in a future 
NMD architecture?
    Answer. I am aware that sea-based systems could play an important 
role in defending against ballistic missile threats. I further 
understand that the Department has prepared a classified study of the 
possible contributions of sea-based systems to National Missile 
Defense. If confirmed I will review that study and make recommendations 
to the President, as appropriate.
                        theater missile defense
    Question. Theater ballistic missile threats exist today and are 
growing. There are currently five U.S. theater missile defense (TMD) 
systems under development for deployment against these existing and 
growing threats.
    What priority will you give to theater missile defense and how will 
it compare to National Missile Defense?
    Answer. In light of the widespread deployment of ballistic missiles 
today, I believe it is imperative that the Department develop, test, 
procure, and deploy TMD systems. Given the simultaneous emergence of 
the long-range ballistic missile threat to the United States, it is 
essential that the Department give equal priority to developing and 
procuring an effective NMD as well.
    Question. Will you continue the ``family of systems'' approach of 
layered and complementary TMD systems currently being developed, or 
will you change the approach to TMD? If you would change the approach, 
what manner of change would you propose?
    Answer. It is my understanding that the concept of layered defense 
has been adopted because a single TMD system cannot defeat the range of 
theater ballistic missiles U.S. forces could face. It also provides 
greater confidence in the overall effectiveness of the system. I 
currently know of no reason to move away from the ``family-of-systems'' 
approach currently under development.
    Question. Several of DOD's theater missile defense programs are 
currently funding-constrained, resulting in either inefficient 
production rates or development delays.
    What sort of priority would you attach to ensuring that we develop 
and field TMD systems in a timely and efficient manner?
    Answer. Given the widespread deployment of theater-range ballistic 
missiles and the threat those missiles pose to deployed U.S. forces as 
well as our friends and allies, I would attach a high priority to the 
development and deployment of effective TMD systems in a timely and 
efficient manner.
                       missile defense technology
    Question. Congress has repeatedly expressed concerns over the 
declining level of funding available for ballistic missile defense 
science and technology and follow-on technology development.
    Do you believe that it should be a priority to reinvigorate the 
Ballistic Missile Defense Organization's support technology efforts?
    Answer. Yes. Effective ballistic missile defense relies on the 
application of some of the most advanced technologies available. In 
assessing the scope of science and technology work in this area, it is 
also important to look beyond the specific dedicated investments in 
BMDO programs.
                  anti-ballistic missile (abm) treaty
    Question. Then-Governor Bush stated in September 1999, that his 
administration would ``offer Russia the necessary amendments to the 
Anti-Ballistic Missile Treaty'' to make possible the deployment of a 
U.S. NMD system. ``If Russia refuses the changes we propose, we will 
give prompt notice, under the provisions of the Treaty, that we can no 
longer be a party to it.''
    What amendments to the ABM Treaty would you propose to the 
Russians?
    Answer. The issue of how to handle the ABM Treaty will be part of 
the overall review of NMD to be directed by the President.
    Question. The ABM Treaty gives each party the right to withdraw 
from the treaty if it decides that ``extraordinary events related to 
the subject matter of this treaty have jeopardized its supreme 
interests.''
    If the U.S. makes a unilateral decision to withdraw from the ABM 
Treaty in order to deploy an NMD system, what possible negative 
consequences do you foresee from the reaction of our allies, from 
Russia, or from China?
    Answer. I am aware that concerns have been expressed by some of our 
allies about NMD and the prospect of U.S. withdrawal from the ABM 
Treaty. I believe these concerns can be addressed through close 
consultations. In the longer run, I believe that deployment of an 
effective NMD system can strengthen U.S. and allied security. For 
example, the failure to deploy appropriate defensive systems could also 
have adverse effects, including:

        <bullet> Paralyzing our ability to act in a crisis or deterring 
        other countries from assisting us;
        <bullet> Providing incentives to U.S. friends and allies to 
        develop nuclear capabilities;
        <bullet> Putting the U.S. in a position where its only option 
        may be preemption; and
        <bullet> Moving the U.S. to a more isolationist position 
        because of an inability to defend against ballistic missiles.

    To date, the Russians have rejected amendments to the treaty to 
permit deployment of any U.S. NMD system, and have raised the 
possibility of withdrawing from existing arms control regimes and on-
going efforts to reduce strategic offensive arms. The task is to 
persuade the world of the truth that deployment of a NMD system will 
strengthen global security and stability. As President-elect Bush has 
stated, ``America's development of missile defenses is a search for 
security, not a search for advantage.''
    Question. Could these consequences, possibly including Russia 
ending its nuclear weapon reductions, have the effect of reducing our 
security or increasing the risk of nuclear proliferation?
    Answer. I don't believe that is the case. These are issues the 
President-elect and his senior officials will need to address.
                    nuclear force levels and posture
    Question. Then-Governor Bush wrote in May 2000 of the need for a 
new approach to nuclear security, saying that ``the premises of Cold 
War targeting should no longer dictate the size of our arsenal.'' 
Concerning the number of nuclear weapons in the U.S. stockpile, 
Governor Bush wrote that he would ``pursue the lowest possible number 
consistent with our national security.'' He also stated that, ``It 
should be possible to reduce the number of American nuclear warheads 
significantly beyond what has already been agreed to under START II, 
without compromising our security in any way.''
    Under what circumstances do you believe it would be possible to 
achieve such reductions?
    Answer. President-elect Bush has stated that he will direct his 
Secretary of Defense to conduct an assessment of the nuclear force 
posture and determine how best to meet U.S. security needs. At the same 
time, he has stated he will pursue the lowest possible number of 
weapons consistent with our national security. I prefer to wait until 
that review is completed before speculating on the circumstances under 
which reductions might be advisable.
    Question. Do you believe we should pursue such reductions through 
negotiated agreement with Russia (and possibly other nations)?
    Answer. The President's advisers plan to undertake a review of how 
best to pursue President-elect Bush's goal of further reductions. 
Logically, this could involve traditional arms control tools, 
innovative unilateral initiatives, or some combination. In any case, an 
approach to any nuclear reductions would need to be developed in the 
context of a number of interrelated factors. These include decisions on 
the ABM Treaty and National Missile Defense, as well as measures 
relating to tactical nuclear weapons, the evolution in Russia's 
unilateral strategic force posture, and the outcome of the planned 
Nuclear Posture Review.
    Question. Governor Bush also wrote that ``the United States should 
remove as many weapons as possible from high-alert, hair-trigger 
status,'' because ``keeping so many weapons on high alert may create 
unacceptable risks of accidental or unauthorized launch.''
    Do you intend to carry out an assessment of ``what we can safely do 
to lower the alert status of our forces?''
    Answer. This is one of the questions that would be considered as 
part of the nuclear posture review.
               u.s.-north korean nuclear agreed framework
    Question. The United States and North Korea signed an agreement in 
1994 that calls for North Korea to end and dismantle its plutonium 
production capacity, and for the United States to lead a coalition with 
South Korea and Japan to provide North Korea with proliferation-
resistant light water reactors if it complies with each step of the 
agreement. To date, both sides have complied with the Agreed Framework, 
which has prevented North Korea from producing enough plutonium for 
dozens of nuclear weapons.
    Assuming both sides continue to comply with its terms, do you 
believe this Agreed Framework serves our national security interests?
    Answer. It is in U.S. interest to ensure that the North Korean 
nuclear weapons program is terminated. I assume that the new 
administration will pursue that objective through means it deems most 
effective. Those precise means would likely be determined following a 
review of U.S. policy towards North Korea and U.S. nonproliferation 
policies.
        comprehensive test ban treaty (ctbt) and nuclear testing
    Question. You have expressed opposition to a permanent, zero-yield 
CTBT.
    If U.S. ratification were conditioned on a robust Stockpile 
Stewardship Program; a firm commitment to preserve the option to test a 
nuclear weapon (by withdrawing from the treaty) if necessary to fix a 
critical problem with the stockpile; and there were a review of the 
treaty after 10 years, would that address some of your concerns about 
the treaty?
    Answer. I am not convinced that that approach would adequately 
protect U.S. national security. The President-elect has opposed CTBT, 
but has stated that he would continue the current testing moratorium. 
That being said, I believe the new administration is likely to 
undertake a review of this matter.
    Question. Do you agree that we should maintain our current 
moratorium on nuclear testing?
    Answer. The President-elect has stated that he will continue the 
current moratorium on nuclear testing. The President will review 
annually the size, composition, and status of the U.S. nuclear weapons 
stockpile. This will include a detailed assessment of the safety, 
reliability, and effectiveness of the weapons in the stockpile. 
Developments in this area need to be monitored closely.
    Question. Do you believe that a CTBT would make it more difficult 
for such nations to develop and stockpile advanced thermonuclear 
nuclear weapons?
    Answer. Not necessarily. History teaches that nations that are 
determined to cheat do so and I do not see how the CTBT can be 
effectively verified.
    Question. As Secretary of Defense, what measures do you believe 
must be taken to ensure that the U.S. stockpile is reliable and safe?
    Answer. I am not an expert, but one point is important. The U.S. 
cannot afford to lose too many of its key design and manufacturing 
personnel who have had senior-level experience in the nuclear weapons 
program when testing was undertaken. The DOD will work closely with the 
new Secretary of Energy and the Director of the National Nuclear 
Security Administration to ensure a safe, effective, and reliable U.S. 
nuclear stockpile and complex.
               cooperative threat reduction (ctr) program
    Question. The U.S. Defense Department has a Cooperative Threat 
Reduction (CTR) program initiated by Senators Nunn and Lugar that is 
designed to reduce the threat of insecure nuclear stockpiles and excess 
weapons of mass destruction in the former Soviet Union.
    Do you agree that this Cooperative Threat Reduction program serves 
U.S. national security interests by reducing the threat from former 
Soviet weapons of mass destruction?
    Answer. Certainly, the elimination of former Soviet strategic 
nuclear weapons and their delivery vehicles that the CTR program has 
funded has benefited U.S. national security. But, we need to be aware 
of the fact that Russia, in particular, claims to lack the financial 
resources to eliminate weapons of mass destruction, but continues to 
invest scarce resources in the development of newer, more sophisticated 
ICBMs and other weapons. We would not want the U.S. investment in the 
CTR program to become the means by which Russia frees up resources to 
finance its military modernization programs. A review of ongoing CTR 
projects and their respective national security benefits would be 
appropriate.
    Question. Are you concerned about continuing this $1 billion 
program at the same time that Russia is increasing its military 
spending and arms exports?
    Answer. Yes. See answer above.
                              space policy
    Question. You have recently served as chairman of a commission to 
examine U.S. space policy.
    Do you believe that protecting our space assets requires the United 
States to develop and deploy offensive means of disabling or destroying 
other nations' space assets, either from the ground or from space?
    Answer. The United States is increasingly dependent on its civil, 
commercial, and defense and intelligence space assets. With that 
dependence comes vulnerability to hostile acts. The Nation needs a 
capability to deter attack on space assets, and systems to defend 
satellites in orbit, the ground stations that control them, and the 
electronic links between them.
    Question. If the United States were to develop and deploy offensive 
means of disabling or destroying foreign satellites, do you believe it 
could lead other nations to acquire such means to threaten U.S. space 
systems? If so, do you believe that would be contrary to our security 
interests?
    Answer. The U.S. and other nations that make use of space face real 
threats to the operation of their satellites. We know that other 
nations have jammed telecommunications from on-orbit satellites, that 
Russian entities market devices that can jam GPS signals, and that 
foreign satellite manufacturers market so-called ``micro satellites'' 
to other foreign countries that can be used for offensive actions 
against satellites. In light of U.S. dependence on space assets, the 
vulnerability of the assets to attack or disruption and the fact that 
others have the means of doing harm to U.S. interests in space, it 
would be contrary to U.S. security interests not to develop, test, and 
deploy the means of deterring attack on and defending space systems.
    Question. In light of this experience, what types of management and 
organizational changes do you believe are needed in DOD to improve 
space management?
    Answer. If confirmed, I will give careful attention to the 
recommendations of the several recent studies and commissions on space 
systems and other matters. There are three areas of particular 
interest. First is the relationship between the Secretary of Defense 
and the DCI, who together have the greatest responsibility for the 
operation of national security space systems. Second, is to assess 
whether the existing organizational structure is adequate for 
developing space policy, working with the military commanders in chief 
(CINCs), and overseeing the development and acquisition of capabilities 
by the Services. Third, is to assess whether changes are necessary 
within the Air Force so as to facilitate more efficient acquisition and 
operation of space systems and to create a dedicated cadre of space 
professionals.
    Question. The Department of Defense is currently reevaluating the 
military requirement for a space-based infrared system to support 
ballistic missile defense.
    Do you believe that the SBIRS-Low Program is a necessary element in 
an overall space and missile defense architecture?
    Answer. I am informed that a number of DOD reviews have concluded 
that a SBIRS Low capability is a necessary element of an effective 
missile defense architecture.
                             space programs
    Question. The Department of Defense has sought to establish a 
space-based radar program for surveillance and moving target tracking.
    How do you rank such a program in terms of the various new 
technologies being developed by the DOD?
    Answer. We use space extensively today to support military 
operations. A radar in space to provide tracking of moving targets is 
an attractive concept. Demonstrating the feasibility of that concept is 
important. I understand there are concerns about the cost associated 
with space demonstration projects. However, without such demonstrations 
it is not possible to know if those systems will help to transform our 
military and provide the means for deterring adversaries and defending 
the United States, our forces, and our friends and allies.
                              the balkans
    Question. U.S. troops are deployed to Bosnia and Kosovo as part of 
NATO-led peacekeeping forces.
    Do you support the continued participation of U.S. forces in the 
NATO-led peacekeeping efforts in Bosnia and Kosovo?
    Answer. President-elect Bush has indicated that a review will be 
conducted of U.S. peacekeeping deployments. His national security team 
will participate in this review. In the meantime, the deployed forces 
have an important job to do and should not be distracted by the fact of 
a new administration.
    Question. If so, under what circumstances and for what timeframe?
    Answer. See previous response.
    Question. Do you believe that our European allies should eventually 
assume full responsibility for these missions?
    Answer. See previous response.
                                  iraq
    Question. Since the end of the Persian Gulf War in 1991, the United 
States has been working to ensure Iraqi compliance with the obligations 
Iraq accepted at the end of the war--particularly those obligations 
related to disarmament. Unfortunately, since 1991 we have witnessed the 
fragmentation of the coalition that liberated Kuwait; the end of UN 
weapons inspections in Iraq; disagreement in the UN Security Council on 
how to proceed; and the re-establishment of diplomatic ties with Iraq 
by many nations in the Gulf region. At the same time, the United States 
continues to deploy thousands of troops to the Gulf region and spends 
approximately $1 billion per year for military operations to contain 
Iraq.
    What are your views on the current U.S. policy toward Iraq?
    Answer. See response below.
    Question. Are you concerned about the weakening in support for 
United Nations economic sanctions?
    Answer. See response below.
    Question. Do you believe that the benefits relating to enforcement 
of the no-fly zones justify the risk to U.S. and British airmen?
    Answer. See response below.
    Question. What additional or different steps, if any, do you 
believe the United States and its allies should take to ensure that 
Iraq's weapons of mass destruction programs and the means of their 
delivery are permanently ended?
    Answer. Saddam Hussein it still in power. The UN weapons inspection 
program established to ensure Iraqi fulfillment of its commitment to 
destroy all of its WMD programs has been suspended for more than 2 
years. Baghdad continues to pose a military threat to its neighbors as 
well as its own people, and Iraqi planes continue to challenge U.S. 
pilots enforcing the northern and southern no-fly zones. In addition, 
political support for Iraq's position seems to be solidifying among 
some Arab states, the economic embargo seems to be collapsing, and the 
coalition that successfully prosecuted the war with Iraq seems to be 
coming undone. The United States continues to maintain a presence in 
the region to deter Iraqi aggression, and daily no-fly zone patrols 
expose U.S. pilots to continuous risk. If confirmed, I will work 
closely with the national security team to help craft a policy that is 
effective and merits the support of Congress and the American people.
                            iraqi opposition
    Question. There is a continuing debate about the implementation of 
the Iraq Liberation Act, which provides authority to provide up to $97 
million worth of defense articles and services to support the Iraqi 
opposition.
    What is your view as to how the Iraq Liberation Act should be 
implemented?
    Answer. In the past I have favored it. However, this is an issue 
that the President-elect and his new administration's national security 
team will need to address. The Iraq Liberation Act established a policy 
of regime-change for Iraq and provides the authority for the Department 
of Defense to draw down $97 million worth of goods and services to 
support the efforts of the Iraqi opposition to bring about a change in 
the regime. I understand that the Department of Defense to date has 
utilized this authority only sparingly, primarily with the provision of 
training and other forms of non-lethal assistance aimed at improving 
the opposition's effectiveness as a political force.
    Helping the Iraqi opposition become a more credible alternative 
voice for the Iraqi people is useful, but may not, in itself, bring 
about a regime change in Baghdad. It could, however, make a useful 
contribution toward achieving that aim.
                              north korea
    Question. Please outline your views with regard to the situation on 
the Korean peninsula, in particular the talks between North and South 
Korea and ongoing missile proliferation talks between the U.S. and 
North Korea.
    Answer. This is a matter the new administration will need to 
address. My personal impression, which is not well-informed, is that 
the on-going political discussions between North and South Korea are 
encouraging. The summit meeting between the Presidents of North and 
South Korea was a dramatic development. Obviously, tensions on the 
Peninsula cannot be reduced unless the two principal parties involved 
are committed to that effort.
    For over 2 years, the Clinton administration has sought to convince 
the North Koreans to limit their missile and missile export programs. 
In September 1999 the DPRK stated that it would refrain from testing 
long-range ballistic missiles (No Dong or greater) while talks to 
improve U.S.-DPRK relations were underway. That decision could be 
reversed at any time. At the same time, I believe that North Korean 
missile exports have continued apace.
    Question. In light of developments on the peninsula, what are your 
views on U.S. troop levels in South Korea? 
    Answer. Neither the North Korean military threat nor its forces and 
posture along the DMZ have changed. Thus, although the in-coming 
administration will undertake a review of our overall military 
deployments, I have seen nothing thus far that persuades me that a 
change in U.S. troop levels in South Korea should be considered.
                            russia and iran
    Question. In early December Secretary Cohen met with Russian 
defense minister Igor Sergeyev to discuss U.S. concern over Moscow's 
continued arms sales and proliferation activities with Iran. While this 
meeting and subsequent State Department meetings later in December were 
considered upbeat, the United States did not receive concrete 
assurances from Russia that these activities would cease.
    As Secretary of Defense, what policy options would you propose to 
President-elect Bush to address and minimize the continued 
proliferation activities of Russia with Iran?
    Answer. This is a matter for the President-elect and his national 
security team. However I would recommend to the President that senior 
officials of the new administration who meet with Russian counterparts 
bring up the serious U.S. concern on proliferation activities that 
strengthen Iran militarily. We must remind Russian policy makers that 
they are dealing with a new administration and they have the 
opportunity to start the relationship in a productive direction if they 
take concrete steps to address our concerns in this area.
                                vieques
    Question. Last fall, Congress enacted legislation that essentially 
followed the agreement reached between President Clinton and the 
outgoing Governor of Puerto Rico, in particular by calling for a 
referendum to decide on whether training will continue there. That 
referendum is currently scheduled for November 2001, but recent 
comments by the incoming Governor of Puerto Rico suggest that she may 
attempt to reopen this deal.
    Do you believe there is a requirement to continue live fire 
training at Vieques?
    Answer. While simulation and non-live fire training certainly have 
value and are integral to the Navy and Marine Corps basic training 
programs, they do not provide an adequate substitute for live-fire 
training. Live-fire training contains an element of realism that is 
absent from simulators and non-live fire training. If U.S. forces 
cannot train under this realism, Sailors and Marines, when placed in a 
combat situation, will not only face the certain chaos that comes with 
combat but also the uncertainty which comes from handling and expending 
live ordnance for the first time in a highly complex, time synchronized 
combat operation. Failing to provide for adequate live-fire training 
prior to combat will place our Nation in the position of risking 
needless casualties through unpreparedness.
    Question. Do you agree with the Chief of Naval Operations and the 
Commandant of the Marine Corps that Vieques is essential to the 
readiness of East Coast naval forces?
    Answer. I am advised that Vieques is a superior site for rehearsing 
amphibious operations, the only site currently used for aerial mine 
warfare training, and is the only location currently available on the 
east coast where aircraft, naval surface ships, and ground forces can 
employ combined arms training with live ammunition under realistic 
conditions. It is the only range currently available on the east coast 
that allows sailors and marines to conduct naval gunfire training. So 
it is a very important site.
    Question. Do you intend to look for alternative sites?
    Answer. I understand that to date no alternative sites, providing 
the ability to conduct combined arms training with live ammunition 
under realistic conditions, have been located.
    Question. Do you believe the existing agreement should be adhered 
to, or is there some alternative solution you believe would be more 
agreeable to all the parties involved that you intend to propose?
    Answer. I have not had an opportunity to study it.
                              base closure
    Question. Secretary Cohen requested two additional rounds of base 
closures in each of his budget proposals to Congress, but so far 
Congress has not agreed to authorize any additional base closures.
    Do you believe we still have excess military infrastructure that 
can and should be reduced?
    Answer. See response below.
    Question. Do you believe it is in the best interest of the Defense 
Department to authorize additional military base closures and 
realignments and that such closures and realignments could better align 
our military base structure to meet the requirements of the new century 
and free up resources for higher priority military needs, while still 
protecting key training areas for which we have enduring requirements?
    Answer. See response below.
    Question. Should any future base closures follow the same basic 
procedures as the past four rounds?
    Answer. I will withhold an assessment of this issue until after the 
completion of the defense review.
                         crisis in the military
    Question. Recent articles and op-eds by James Schlesinger and 
Harold Brown forecast that one of the first ``nightmares'' the new 
president will inherit is the threat of a ``defense train wreck'' 
looming in the next 5 to 10 years as the result of a decade of massive 
under-funding of the true costs of maintaining the current size and 
structure of the U.S. military.
    What are your views regarding these assessments of the future of 
our Armed Forces?
    Answer. Given President-elect Bush's commitment to rebuilding and 
reforming the U.S. military, and the commitment of many members of 
Congress, I believe we can ensure a strong future for U.S. Armed 
Forces. We do face major funding and technological challenges. 
Overcoming these challenges is necessarily a multi-year undertaking. 
The American people clearly support keeping our Nation secure, and our 
economy certainly makes that affordable. I believe my predecessors, Jim 
Schlesinger and Harold Brown, are correct in noting that many years of 
carefully targeted investment will be needed to guarantee the future 
superiority of those forces.
                        recruiting and retention
    Question. The Armed Forces are experiencing significant problems in 
retaining company- and field-grade officers (O-3, O-4) who would, if 
retained, be contenders for intermediate service schools and command. 
The Armed Forces are experiencing similar problems in retaining mid-
grade noncommissioned officers (E-5, E-6). These personnel are the 
backbone of the enlisted force, both as workers and as trainers and 
role models for younger enlisted personnel.
    In your view what are the primary factors associated with this 
attrition?
    Answer. See response below.
    Question. What would you propose to mitigate this attrition?
    Answer. It is my understanding that a number of factors have 
contributed to recruiting and retention challenges. A robust domestic 
economy has made it more difficult for recruiters to compete with the 
private sector job market; a heavy operations tempo has placed 
significant burdens on family life; and perceptions about a changing 
mission for the military have all contributed to stresses on military 
recruiting and retention efforts.
    President-elect Bush has spoken often about this issue during the 
campaign. As he stated, ``the military should be a magnet for the best 
and brightest in America.'' I share this view. We will examine a range 
of measures to try to make this goal a reality, including an increase 
in military pay, improved military housing, and a review of overseas 
deployments.
                            force structure
    Question. Force structure has been reduced about 35 percent since 
1989. Evidence, both anecdotal and analytical, increasingly indicates 
that the force structure of the Armed Forces may not be adequate to 
carry out the national security strategy of the United States including 
the current range of contingency operations. If this is so, the 
alternatives would seem to be a less ambitious strategy, a bolstering 
of force structure, or some combination of those alternatives.
    In your opinion, is the existing force structure of the Armed 
Forces adequate?
    Answer. See response below.
    Question. If not, what measures would you recommend, if confirmed, 
to deal with the problem?
    Answer. U.S. forces are stretched thin. This committee has heard 
testimony from the service chiefs to that effect. In accordance with 
law, the incoming administration will work to develop a national 
security strategy within 150 days after inauguration. That is a very 
short period. Also in accordance with law, the Department of Defense 
will review the overall defense strategy and produce a report to 
Congress in the fall. If confirmed, I expect to be fully engaged in 
those efforts. Once we have a new national security strategy, and we 
have had the opportunity to review our defense strategy, we can make 
decisions about the appropriate size and nature of the force.
                       homosexual conduct policy
    Question. The current Department of Defense Homosexual Conduct 
Policy went into effect in February 1994 after months of congressional 
hearings and debate resulting in the enactment of a Federal statute. 
Although there have been some changes in how this policy has been 
implemented, the basic policy has not been changed.
    Do you believe that the current policy is effective? If confirmed, 
do you plan to make any changes to the basic policy or its 
implementation? If so, what changes will you propose?
    Answer. I am not yet knowledgeable as to how the current policy is 
working. Consistent with what President-elect Bush said during the 
campaign, and if confirmed, I have no plans to recommend changes either 
to current law or policy.
                       gender integrated training
    Question. Basic training for new recruits is structured and defined 
differently by each Service. Men training for direct ground combat 
positions in the Army and Marine Corps train in all-male units. Men and 
women training to serve in positions that are open to women in the 
Army, Navy, and Air Force train in gender-integrated units. Men and 
women in the Marine Corps are segregated at boot camp, then integrated 
during subsequent training.
    Do you believe the current DOD policy of allowing each of the 
Services to establish its own policy for gender integration in Basic 
Training is effective? If confirmed, will you propose changes to the 
DOD or Service policies? If so, what changes will you propose?
    Answer. Basic training should have one purpose: to transform the 
recruit from civilian into a disciplined, physically fit soldier, 
sailor, airmen/women, and marine. If and when that goal is not being 
met, then changes should be made. Each service has the responsibility 
to design and implement the system of basic training that best 
accomplishes the goal for that service, and it should do just that. At 
present the services have varying policies with regard to gender 
integration in basic training. I do not have sufficient information as 
yet to comment further.
                        army corps of engineers
    Question. The Army Inspector General recently released a report 
criticizing the Army Corps of Engineers for ``institutional bias'' and 
``an atmosphere where objectivity in its analyses [has been] placed in 
jeopardy.''
    Do you agree that the Army Corps of Engineers should institute a 
system of independent peer review of studies supporting major projects 
by experts from outside the agency before such projects are approved? 
Why or why not?
    Answer. I am not aware of this matter. I am advised that the 
Secretary of the Army and the new Chief of the Army Corps of Engineers 
recently developed working arrangements aimed at ensuring open lines of 
communication, necessary oversight, and, at the same time, the 
application of independent technical judgment by the Corps. 
Additionally, the Chief of the Corps has been directed to respond to 
the Army Inspector General's findings regarding the objectivity of its 
analyses and bring forward improvements aimed at ensuring sound, 
unbiased decision making. Those responses will have to be reviewed 
before making any recommendations.
                       u.s.s. cole investigations
    Question. When Secretary Cohen took office, one of his first 
actions was to review the multiple Defense Department and Air Force 
inquiries into the terrorist attack on the Khobar Towers in Saudi 
Arabia. These investigations were initiated under his predecessor, 
then-Secretary William Perry. The attack on Khobar Towers on June 25, 
1996, killed 19 military personnel and left hundreds injured. Following 
his review, Secretary Cohen directed actions that were opposed by many 
in the Air Force and that resulted in the voluntary retirement of the 
then-Air Force Chief of Staff. You will begin your term as Defense 
Secretary under strikingly similar circumstances. Several 
investigations into the October 12, 2000, bombing of the U.S.S. Cole 
are being concluded.
    Will you make one of your first priorities in office to review the 
findings of the multiple Defense Department and Navy investigations 
into the terrorist attack on the U.S.S. Cole?
    Answer. Yes.
    Question. Will you transmit to the President and to Congress your 
assessment of the findings and recommendations of the U.S.S. Cole-
related investigations as soon as possible?
    Answer. I will transit any findings and recommendations that may 
result from the investigations.
    Question. If you find that the investigation initiated by your 
predecessor or the Navy were deficient in any areas, will you direct 
additional inquiries?
    Answer. It is important that the findings of the current 
investigations be reviewed without prejudgment.
                             modernization
    Question. For the last several years, the Department of Defense 
modernization budget has fallen short of critical requirements 
identified by the Chairman of the Joint Chiefs of Staff and each of the 
military services while the operational tempo of our forces is 
extremely high. As a result, near term readiness requirements have 
often been met at the expense of the long-term readiness, or 
modernization arena. We recognize that President-elect Bush has called 
for an overall review of military modernization programs and that this 
will be an area of great interest to you as the Secretary of Defense.
    How will you establish this modernization review process, what will 
be considered, and how will you incorporate the conclusions of this 
process into Department of Defense modernization budget requests?
    Answer. If confirmed, I will undertake congressionally-mandated 
review of the U.S. national security strategy and examine the 
modernization plans to carry it out in the conduct of the Quadrennial 
Defense Review (QDR). Considering which weapons to modernize and which 
to replace with new technology should be a major part of the QDR 
process.
                   exports of sensitive technologies
    Question. In his October 1999 speech on high tech issues, then-
Governor Bush stated that, as President, he would safeguard sensitive 
high technology exports, while letting Americans sell what is already 
widely available elsewhere. He stated that wherever there is no 
security interest at stake, exports would be permitted. Wherever 
security is truly at stake, exports would be barred, with serious 
penalties for violations. Governor Bush stated further that his 
administration would work to renew the cooperation of U.S. allies in 
this effort.
    As Secretary of Defense, what policies and procedures would you 
consider changing to reflect these criteria as the basis for 
determining the exports of sensitive high technology?
    Answer. Exports of sensitive high technology affect U.S. national 
security interests in many ways. First, we must protect our military 
personnel and our security interests by ensuring that sensitive 
technologies are not exported to potential adversaries or to foreign 
entities that represent a significant diversion risk. Second, we must 
have sensible and effective policies and procedures to ensure that 
appropriate transfers of military and commercial systems and 
technologies that support our coalition warfighting objectives through 
greater interoperability with our allies and friends are permitted. 
Finally, we must be mindful that the U.S. is not the only country with 
advanced military and commercial technology. Thus, we need to work 
aggressively with our allies and friends to ensure that our policies 
and approaches toward the export of such technologies meet our mutual 
security interests. The Department of Defense has an essential role to 
play in implementing these principles, and I will ensure that 
appropriate resources and senior level attention are devoted to this 
area.
                          information security
    Question. Information superiority is widely recognized as an 
enabler of U.S. military superiority, and information security is a key 
to achieving information superiority.
    How do you plan on ensuring the security and integrity of the 
defense information infrastructure in the face of ever-expanding cyber 
threats?
    Answer. Information security poses important challenges and 
opportunities for Defense. We must prevent unauthorized access to 
information and information systems. We must work with other government 
organizations--the FBI, Department of Justice, and the Intelligence 
Community--in a collaborative environment to anticipate and counter 
such threats. I will ensure that the department devotes considerable 
time and attention to information security and information superiority.
                              intelligence
    Question. What would be your top intelligence priority if you are 
confirmed as Secretary of Defense?
    Answer. We are in a new national security environment. 
Characteristics of this new environment include:

        - A relaxed attitude with the end of the Cold War.
        - The proliferation of powerful weapons and technologies 
        throughout the world.
        - As a result of the Gulf War, a set of threats less likely to 
        be deterred by the threat of U.S. nuclear retaliation.
        - Considerably more complex intelligence challenges given the 
        larger number of targets, and the proliferation of deception 
        and denial capabilities.
        - Increasing dependence on space assets and therefore increased 
        vulnerability.

    The intelligence community, just as the Department of Defense, 
needs to be rearranged to deal with the new security environment. The 
national command authorities need information more than simply numbers 
of things--ships, missiles, tanks, and planes--they need better 
information on intentions and motives as well.
    Certainly the proliferation of nuclear, biological, and chemical 
weapons and the means to deliver them pose a threat to the security of 
the United States, its allies, and friends. We must ensure that we are 
devoting the appropriate resources to identify these newer threats, 
including cyber attack.
    Question. What organizational and management changes do you believe 
are necessary in the Department of Defense to ensure that the best 
possible intelligence support is provided to the warfighter?
    Answer. This is an area that I intend to review if confirmed. Most 
important is senior level leadership, and a close working relationship 
between the SECDEF and the DCI is critical to the challenges ahead.
    Question. What specific actions would you pursue to ensure that the 
Secretary of Defense and the Director of Central Intelligence are able 
to cooperate and coordinate on national and military intelligence 
matters?
    Answer. One of the highest priorities should be to establish a real 
partnership with the DCI to ensure cooperation and coordination on 
intelligence matters. Reform of the Intelligence Community will require 
close collaboration.
                         science and technology
    Question. The Department of Defense Science and Technology program 
is at a 20-year low. The Strom Thurmond National Defense Authorization 
Bill for Fiscal Year 1999 established the goal of increasing the budget 
for the defense science and technology program by at least 2 percent 
over inflation for each of the fiscal years 2000 to 2008. This goal has 
not been met in the fiscal year 2000 nor the fiscal year 2001 budget 
request.
    Do you believe that a substantial increase in science and 
technology funding is needed?
    Answer. Determining a sufficient level of science and technology 
(S&T) investment is not a precise science. A downsized military needs a 
technological edge more now than ever. President-elect Bush has 
committed to increasing defense R&D by at least $20 billion between 
fiscal year 2002-2006. The S&T accounts should receive a substantial 
share of this increase.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Secretary of Defense?
    Answer. The new administration will need to consider all of these 
aspects in evaluating the National Security Strategy and National 
Military Strategy. The goal is to assure that our country has the new 
capabilities necessary to deter and defend in our new national security 
environment so we are able to contribute to the peace and stability. 
This will entail transforming U.S. military forces to a 21st century 
force, modernizing the intelligence and command, control and 
communications infrastructure, and reforming DOD structures, processes, 
and organizations. Further, the new capabilities and readiness must be 
sustainable.
    Balancing limited resources--even in an atmosphere of projected 
budget surpluses--is always a challenge. Properly outfitting our forces 
today, while at the same time ensuring we sustain robust modernization 
for the future, will be a key challenge for the new administration.
    Specific issues--such as morale, recruiting and retention, health 
care and benefits--will also be important.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. These issues and others should be components of the 
upcoming defense review and Quadrennial Defense Review. Through those 
reviews, the new administration can examine priorities and weigh the 
fiscal implications associated with those priorities.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of Secretary of Defense?
    Answer. Institutional resistance to change across the board--
executive branch, legislative branch, the private sector, as well as 
our allies. Change is difficult for institutions, but change we must.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. It is too soon to establish time lines. If confirmed I 
would need to know a lot more than I do now to respond. It will require 
close consultation with Congress and this committee.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. I consider that to be one of the most important parts 
of the job.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Edward M. Kennedy
    1. Senator Kennedy. Secretary Rumsfeld, while the F-18E/F has 
significantly modernized our carrier aircraft fleet, many Navy and 
Marine Corps aircraft still need to be modernized. The AV-8B Harrier 
and EA-6B Prowler are some of the oldest aircraft in our inventory.
    Do you see the Joint Strike Fighter as a possible solution to these 
aircraft modernization needs?
    Secretary Rumsfeld. The Joint Strike Fighter, along with other 
tactical aircraft programs, will be assessed as part of the planned 
review of defense policy and programs.

    2a. Senator Kennedy. The risk in being ready to fight the first war 
is ``moderate'' and that of the second is ``high.'' As the Department 
of Defense prepares to conduct the next Quadrennial Defense Review, 
will you consider alternative strategies to the two war scenario as you 
prepare to conduct the next review?
    Secretary Rumsfeld. I anticipate that a wide range of strategy 
options will be considered as part of the upcoming QDR.

    2b. Senator Kennedy. If the two war scenario continues to be our 
strategy, how can we reduce the risk of each? President-elect Bush has 
said that he wants to increase defense spending by $20 billion.
    How much of this amount will be dedicated to non-national missile 
defense related research and development programs?
    Secretary Rumsfeld. No decision has been made on the appropriate 
level of resources for defense or how any additional funds would be 
distributed.

    3a. Senator Kennedy. The Defense Science Board released ``The 
Technology Capabilities of Non-DOD Providers'' report in June 2000. In 
this report the Board recommends substantially increasing the defense 
science and technology base and, in particular, a 30 percent increase 
in defense basic research over 3 years. The concern over the eroding 
defense science and technology program was addressed by Congress in the 
Fiscal Year 1999 National Defense Authorization Act, which stated it 
should be an objective of the Secretary of Defense to increase the 
budget for the science and technology program by at least 2 percent a 
year over inflation each year through 2008.
    How do you propose to address this urgent national priority?
    Secretary Rumsfeld. I agree that the defense science and technology 
program needs to be strengthened. However, until I have had an 
opportunity to review the program in detail, I am not in a position to 
comment on the appropriate funding level for the program.

    3b. Senator Kennedy. Many believe that stability will never be 
restored in the Balkans as long as indicted war criminals remain at 
large. Do you believe that the military should be involved in the 
arrest of war criminals?
    Secretary Rumsfeld. I would like to review the recent history and 
discuss this with my associates in the new administration before 
commenting.

    4a. Senator Kennedy. For years now, Iraq has refused to accept an 
independent monitoring team to ensure that Saddam Hussein is not 
rebuilding his arsenal of nuclear, biological, and chemical weapons of 
mass destruction. In addition, the economic and diplomat sanctions 
placed on his regime have been weakened by our allies in the region and 
in Europe. Some nations are even setting up offices in Iraq, in hopes 
of contracting Iraqi oil fields in the future in anticipation of these 
weakened sanctions collapsing.
    Regarding Iraq and Hussein, the President-elect's choice to be 
Secretary of State, Colin Powell, has said, ``I think it is possible to 
re-energize those sanctions and to continue to contain him and then 
confront him, should that become necessary again.''
    Under what circumstances could you envision such a confrontation?
    Secretary Rumsfeld. U.S. policy towards Iraq will no doubt be the 
subject of review by the new national security team. If confirmed, I 
will look forward to participating in that review. That being said, it 
is important to keep in mind that Saddam Hussein has miscalculated 
before and therefore any confrontation that takes place might be as a 
result of his actions.

    4b. Senator Kennedy. What do you think sanctions on Iraq should 
accomplish? Are they accomplishing this goal? Are we targeting the 
right behavior? Are the objectives of halting chemical, biological, and 
nuclear weapons production attainable in your view?
    Secretary Rumsfeld. Because of the erosion of the sanctions regime, 
it is reasonable to assume that weapons of mass destruction and missile 
programs are continuing in Iraq. How best to deal with the threat posed 
by Saddam will be the subject of review by the new administration.

    5. Senator Kennedy. In September 1999, President Clinton issued an 
executive order severing all U.S. military ties with Indonesia 
following the violence perpetrated against the East Timorese people in 
the aftermath of their vote for independence.
    Will you support a continuation of the current military cut-off? 
What signs or indications within the Indonesian military and government 
will you be watching for before you consider re-establishing full 
military relations?
    Secretary Rumsfeld. Although I am aware of the general state of 
U.S.-Indonesian military-to-military relations, I have not had an 
opportunity to review this matter in detail. If confirmed, I will 
undertake to review those relations.

    6. Senator Kennedy. There have been substantial changes in the role 
of women in our Nation's Armed Forces in the years since you were 
Secretary of Defense. Women now serve in a wide range of military 
occupations and there are more women generals and admirals than ever 
before. Women serve on combat ships and fly combat aircraft; women and 
men train together in all services at advanced levels--and in three of 
the services at the basic training level.
    What is your view of the role of women in today's military? 
Specifically, do you have any objection to the ways in which women and 
men train together today, or to opening any particular military 
occupational specialties to women?
    Secretary Rumsfeld. As I stated in answer to one of the committee's 
questions, basic training should have one purpose: to transform the 
recruit from civilian into a disciplined, physically fit soldier, 
sailor, airman/woman, or marine. If and when that goal is not being 
met, then changes should be made. Each service has the responsibility 
to design and implement the system of basic and other training that 
best accomplishes the goal for that service. At present the services 
have varying policies with regard to gender integration in basic 
training. I do not have sufficient information as yet to comment 
further.

    7. Senator Kennedy. The Pentagon Inspector General conducted a 
survey of 75,000 service members last year and found that 80 percent 
reported hearing, witnessing, or experiencing anti-gay harassment. 
Based on those findings, Secretary of Defense Cohen asked a Department 
working group to review the current rules and training to prevent such 
harassment. The working group produced a 13-point action plan for a new 
regulations by the Department on this issue.
    Will you ensure that these new regulations are fully implemented 
and enforced?
    Secretary Rumsfeld. I have not had an opportunity to review the 
current rules or the working group's findings and recommendations.

    8. Senator Kennedy. The lack of good housing for our service 
members and their families is an area where I think we really need 
improvement. At Hanscom AFB, there is currently a 6-month wait for on-
base housing. The number of families on this list today stands at 106. 
I venture that the wait is similar at bases across the country.
    What can be done to limit or eliminate this wait? How can we ease 
the burden on a service member and his or her family when they've been 
assigned to a new base, but have to find short-term living arrangements 
while waiting for affordable base housing?
    Secretary Rumsfeld. I agree that military housing can and should be 
improved. Substandard housing and long delays undermine morale and 
ultimately affect job performance. If the Department can effectively 
tap into the prodigious resources and methodologies of the private 
sector to improve this situation, then we should do so. If confirmed, 
improving the quality and availability of military housing will be a 
priority.

    9. Senator Kennedy. You noted in your answers to the advance policy 
questions that, ``(t)he Department's approach should be comprehensive 
and balanced, supporting test and training and operational 
requirements, while seeking to protect the natural environment and 
operating within a balanced regulatory framework'' and that ``(t)he 
goal is to maintain fully sustainable ranges.''
    Last week, three of my colleagues on this committee and I wrote to 
Secretary Cohen urging that he consider establishing a Defense 
Environmental Restoration Account to begin to deal with the large 
amount of unexploded ordnance left at many of our military facilities.
    Would you please take a look at this idea? The more quickly the 
Department can get a handle on this issue, the more sustainable 
training will be at many military bases.
    Secretary Rumsfeld. If confirmed, I will task a review of this 
suggestion and report back on the results.

    10. Senator Kennedy. Several years ago, President Clinton, the 
Joint Chiefs, and Congress agreed that the United States would search 
aggressively for alternatives to land mines, and that if suitable 
alternatives are fielded the United States will join the Ottawa 
Convention. The Pentagon has made progress, but more needs to be done. 
Later this year we will also have the benefit of recommendations on 
mine alternatives by the Los Alamos/Livermore Laboratories and the 
National Academy of Sciences. There is bipartisan support in Congress 
for the United States to join our NATO allies and others, and set an 
example to rid the world of land mines. We also want to ensure the 
safety of our Armed Forces, which includes improving their counter-mine 
capabilities.
    Will you, as Secretary of Defense, strongly support the effort to 
field alternatives to land mines, so we can join the Ottawa Convention?
    Secretary Rumsfeld. I am not familiar with the obligations imposed 
under the Ottawa Convention and have not yet been briefed on the 
efforts to develop alternatives to land mines. If confirmed, I will 
review this issue, keeping foremost in mind the need to protect 
American servicemen and women.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    11. Senator Byrd. I am very concerned about the threat of homeland 
terrorism. I believe that Senator Levin mentioned in his opening 
remarks how easy it would be for a terrorist to poison our public water 
systems. As best I can tell, all it would take is a single vial of some 
type of chemical or biological agent and you could wipe out the water 
supply for an entire city. Frankly, I believe that this threat is a 
more likely scenario under current world circumstances than that of the 
conventional ballistic missile threat posed by rogue nations.
    Do you believe that the threat of chemical and biological 
terrorism, as well as the threat posed by simple suitcase or truck 
bombs, deserve the same emphasis as a national missile defense system?
    Secretary Rumsfeld. Defending the American people against all types 
of unconventional or terrorist attacks must be a top priority of the 
new administration. If confirmed, I will devote time and attention to 
strategies and programs that can address this growing threat. In 
addition, because of the sometimes overlapping or conflicting 
obligations of the various federal and state governmental departments 
and agencies, inter-agency coordination is important. If confirmed, I 
will do my best to ensure proper coordination is achieved.

    12. Senator Byrd. Turning to terrorism overseas--a Pentagon 
Commission reviewing the terrorist attack on the U.S.S. Cole released 
its report earlier this week. The Commission determined that the 
military lacks coordination with other government agencies to fight 
terrorist threats. It recommended that training against terrorism be 
made as high a priority as training for combat.
    Do you agree with that conclusion?
    Secretary Rumsfeld. If confirmed, I will review the Crouch-Gehman 
report carefully, along with the other reports commissioned on aspects 
of the U.S.S. Cole terrorist incident. That being said, I agree that 
realistic training against a wide range of terrorist and other threats, 
including operating in a nuclear, chemical, biological, or radiological 
environment, is imperative.

    13. Senator Byrd. I understand that there was a good deal of 
discussion about Colombia at the morning session of this hearing. I 
commend Chairman Levin and Senator Warner for recommending that this 
committee get more involved in future decisions surrounding our 
involvement in Colombia. This is a dangerous mission, and I am deeply 
concerned that the United States should not be drawn into Colombia's 
civil war.
    As you and I discussed earlier, it was my proposal that capped the 
number of military and civilian personnel who could be involved in Plan 
Colombia in country. The reason that I proposed these caps was to 
ensure that mission creep would not inflate the number of American 
citizens in Colombia on what is a potentially deadly mission.
    Mr. Secretary, you've seen the results of American troops being 
drawn into civil conflicts overseas with no exit strategy. I understand 
that you want to wait until you can have a full briefing on the 
situation in Colombia before recommending a specific course of future 
action. However, this is not the first time that the U.S. has run up 
against the possibility of being drawn into another nation's civil war. 
How do we guard against that happening with this mission? Will you re-
evaluate our presence in Colombia?
    Secretary Rumsfeld. As I stated during the hearing, I am not 
sufficiently informed about the situation in Colombia. I understand the 
nature of your concern, however, and if confirmed will review the U.S. 
military involvement carefully.
                                 ______
                                 
               Questions Submitted by Senator Max Cleland
    14a. Senator Cleland. As you may know, language was included in the 
Fiscal Year 2000 Defense Authorization bill directing the Secretary of 
Defense to submit a report no later than February 2000 describing the 
airlift requirements necessary to carry out the various missions of our 
Armed Forces. It is my understanding that this report is finally 
complete and is awaiting release by the Secretary of Defense.
    Preliminary information contained in this report outlines our 
current mobility challenges. Our current requirement is 49.7 million 
ton miles. The Mobility Requirements Study estimates that the 
requirement may rise to around 54.4 million ton miles. This indicates 
we are woefully short on meeting the future requirements.
    With the move away from more forward-deployed forces, airlift and 
air mobility will continue to be the key ingredient in our responding 
to future military missions and crises. However, there is uncertainty 
on how best to address this challenge. Certainly, the C-130J is 
integral in our rapid deployment within the theater of operations. 
However, the Air Force has been reluctant to put C-130s in their budget 
or in placing the aircraft on their unfunded requirements list--instead 
relying on congressional add-ons during the budget process. How would 
you rectify the inconsistencies of the C-130J program over the past 
several years?
    Secretary Rumsfeld. I am aware of and appreciate the keen interest 
in the C-130J program shown by you and several of your colleagues. 
However, I have not had an opportunity to review the program in detail, 
nor have I seen the results of the Mobility Requirements Study you 
mention. If confirmed, I will review the study and the program.

    14b. Senator Cleland. Given your plans to review and revise our 
military strategy in the context of President-elect Bush's desire to 
review all military operations and the Quadrennial Defense Review 
(QDR), would you consider submitting a new mobility requirements 
report?
    Secretary Rumsfeld. Until I have had the opportunity to review the 
above-mentioned study, it would be premature to suggest that an 
additional study is needed.

    15. Senator Cleland. Military health care is a matter of great 
importance to our service members and to this committee. Last year, in 
response to concerns raised by the Secretary of Defense and the 
Chairman of the Joint Chiefs, we enacted legislation that eliminates 
deductibles and copayments under TRICARE Prime for families of Active 
Duty service members; provides lifetime health care for military 
retirees and their families through the TRICARE program; and provides a 
comprehensive pharmacy benefit for military retirees. We still hear 
concerns from our constituents about lack of timely access to health 
care, portability of benefits as our service members move around, and 
poor claims processing.
    What are your priorities for maintaining a working, accessible, 
properly funded health care system?
    Secretary Rumsfeld. I agree that the provision of effective, 
affordable health care to our servicemen and women and their families 
is a high-priority objective I have not had an opportunity to review 
the Defense Health Program, however, and therefore I am unable to 
comment on how best to ensure such coverage and treatment. If 
confirmed, I will devote time to this important program.

    16. Senator Cleland. Almost all new service members enroll in and 
contribute to the Montgomery GI Bill. Only about half of these use 
their benefits, and many who use the benefit do not use all of their 
entitlement. Many of these soldiers, sailors, airmen, and Marines say 
they would like to stay in the service, but feel they have to leave so 
that they can provide for the education of their spouses and children.
    I believe that many of these service members would stay in the 
service if they could transfer all or a part of their unused 
entitlement to GI Bill benefits to family members in return for a 
service commitment. Service Secretaries could use this retention tool 
selectively, just as they use reenlistment bonuses.
    Will you give serious consideration to how the Department of 
Defense could use the transfer of GI Bill benefits to family members as 
a retention tool and give me your thoughts on how we best do this?
    Secretary Rumsfeld. I was interested in this suggestion when you 
mentioned it during the confirmation hearing. If confirmed, I will give 
consideration to this suggestion.

    17. Senator Cleland. From what we have heard in today's session and 
from what has occurred on Capitol Hill in the past few years, it seems 
obvious that one of the most contentious national security issues--
which too often has broken down along party lines--is the subject of 
National Missile Defense. I would add, however, that I believe this 
important question cannot be viewed in isolation from our overall 
national strategic policy. For example, how will NMD be related by the 
new administration to the Comprehensive Test Ban Treaty, which 
unfortunately also broke down along partisan lines in the last 
Congress. I believe we must try to achieve a bipartisan consensus on 
this whole collection of issues and do so in a fashion which is 
comprehensive and coordinated. Therefore, I have proposed that we 
consider creating a bipartisan Commission on National Security Policy 
composed of respected leaders from both parties which seeks to develop 
such a consensus and encompasses both NMD and CTBT as well as related 
issues. I fear, Mr. Secretary, that absent a comprehensive, consensus 
approach that we may face more partisan wrangling and more internal 
division, which will serve our military, our country, and indeed the 
entire world.
    Would you care to react to any of these points?
    Secretary Rumsfeld. I agree that it is vital to consider issues 
such as NMD and CTBT in a broader context, and certainly bipartisan 
consensus is desirable. That being said, I am not persuaded that 
establishment of a commission, as you describe, is needed. The 
President-elect has stated that he does not favor ratification of the 
CTBT. He has indicated that he plans to continue the moratorium on 
underground nuclear testing so long as the safety, reliability, and 
effectiveness of the nuclear stockpile can be certified. If confirmed, 
I will do what I can to contribute to the achievement of bipartisan 
support on topics such as these.

    18. Senator Cleland. This committee has expressed its full support 
for upgrading and modernizing the C-5 fleet, both A and B models. 
Airlift is absolutely vital to America's ability to project military 
force. This will continue to be true for the foreseeable future. In 
last year's report accompanying S. 2549 (The Fiscal Year 2001 Defense 
Authorization Act), this committee expressed concern that the Air Force 
appears to have budgeted for just modernizing the B-models first and 
yet has not provided any form of explanation for deviating from the 
committee's belief that the A and B models both need to be re-engined 
as soon as possible. In addition, the Air Force has not explained how 
it could arrive at this plan without doing the initial EMD testing on 
at least one A and one B model to factually determine the potential for 
improving the performance and reliability of the each model. The 
committee requested that the Air Force address these concerns by 
February 15, 2001.
    In the meantime, despite the support of this committee and the 
House defense committees, the contracting for the C-5 RERP has been 
inexplicably delayed. The contract was supposed to be let in November 
and yet still is not complete. For a program as vital to national 
security as the improvement of outsized/oversized airlift capability, 
this sort of unnecessary and unexplained delay is unacceptable.
    What commitment can you give this committee that the C-5 RERP will 
proceed as directed? What will you do to get the C-5 RERP back on 
schedule? Will you ensure that both A and B models are included in the 
initial testing so that any future program decisions are based on real 
facts?
    Secretary Rumsfeld. I have not yet had the opportunity to review 
the C-5 program. I expect that the C-5 program will be reviewed in the 
context of mobility requirements as part of the overall defense policy 
review I plan to undertake, if confirmed.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    19. Senator Landrieu. Our nuclear posture is essentially frozen by 
a law that we not fall below Start I levels. Furthermore, we are coming 
upon several crucial and costly decision points with respect to some of 
our nuclear systems. I believe that this nation would be well-advised 
to establish an appropriate and cost-effective deterrent independent of 
anything Russia does.
    Do you believe that we need to hold to some artificially mandated 
level of nuclear weapons, or is it wise for the Pentagon to evaluate 
these questions from the bottom up?
    Secretary Rumsfeld. The President has stated that we want to go to 
the lowest level of nuclear weapons commensurate with the national 
security of the United States and our allies. Upon completion of the 
Nuclear Posture Review, we will review this requirement as well as 
which criteria to use in determining an appropriate strategic nuclear 
force level for the foreseeable future. I do hope that Congress would 
provide for the ability to get to the appropriate number of nuclear 
weapons, likely to be below today's level.

    20. Senator Landrieu. We all understand that the Single Integrated 
Operation Plan or SIOP, is, of necessity, one of the most closely 
guarded secrets that our Nation possesses. However, one of our esteemed 
Senate colleagues, Bob Kerrey, the ranking member of the Senate 
Intelligence Committee, shared with us the fact that he had been stone-
walled by his every effort to have some opportunity to review these 
plans. While the SIOP is obviously one of our most import secrets, it 
is also one of our most fundamental defense policy decisions.
    Can you assure this committee that you will at least assist the 
committee leadership in gaining access to the SIOP for their review and 
consideration?
    Secretary Rumsfeld. I understand that there are certain procedures 
in place at this time whereby Congress has access to data regarding the 
nuclear war plan. I also understand that there are concerns that these 
procedures may not be sufficient. I will look into this matter and work 
with Congress to reach an acceptable balance between the requirement 
for security and the congressional need for information on this highly 
sensitive plan.

    21. Senator Landrieu. You very cogently argued for the need to 
better integrate commercial off-the-shelf technology into our military 
force. It is important for us to do, and an important piece of that 
work is being done at our Navy Technology Center in New Orleans. 
However, I'd like you to consider a slightly different application of 
that same principle. I believe that we need to consider the utilization 
of commercial off-the-shelf personnel. What I mean by that term is this 
nation is creating a vast community of highly intelligent, highly 
skilled, and highly sought-after workers in the computer and 
communications fields. We also know that with the onset of NET-CENTRIC, 
and so-called ``cyber'' warfare, our Nation's military is going to 
desperately need more of these minds. Unfortunately, I believe that 
there is something of a disconnect between this need for talent, and an 
institutional culture that would attract this sort of talent. I have 
commended Rudy de Leon for taking the initiative of focusing the 
Reserve components on this question.
    Would you endorse a new strategy to solicit service from this core 
of talented individuals and introduce new standards which may be 
outside the box in order to employ them fight this new threat?
    Secretary Rumsfeld. I agree that the Department can do a better job 
of recruiting and retaining individuals with skills in the computer and 
communications fields. If confirmed, I will seek to develop strategies 
for securing the availability of such individuals and look forward to 
working with Congress to implement appropriate strategies.

    22. Senator Landrieu. Do you believe that adding funds to the 
defense budget alone will solve the problems we face? Do you have an 
estimate of an increase that you would desire?
    Secretary Rumsfeld. The challenges facing the Department are many. 
Certainly, a shortage of resources is evident, and priorities are 
needed. There are numerous other challenges as well, as I laid out in 
my testimony before the committee. If confirmed, I look forward to 
working with the committee and Congress as a whole to address these 
challenges.

    23. Senator Landrieu. I would like to know your opinion with the 
approach of decreasing some of our existing infrastructure and 
transferring those assets to the operational forces in order to provide 
some relief to our deployed forces. Do you have any specific approaches 
you could provide us with today?
    Secretary Rumsfeld. I do not, as of today.

    24. Senator Landrieu. One of the most exciting projects that we 
have underway in Louisiana is the Navy Information Technology Center in 
New Orleans. I would like to invite you to see this operation first-
hand at your earliest opportunity. This center is really a model for 
the sort of innovation required by the Clinger-Cohen Act.
    Would you please comment on your views of this act, and what steps 
we might take to increase the pace of reform?
    Secretary Rumsfeld. First, thank you for the kind invitation. I 
have not reviewed the Clinger-Cohen Act, although I understand it 
allows for certain innovative ``pilot projects'' associated with 
acquisition reform. Given the fact that the existing acquisition system 
is in need of substantial reform, it may be that additional use of the 
authorities to conduct ``pilot projects'' aimed at that reform is 
warranted.

    25. Senator Landrieu. As you may know, recent studies estimate that 
it will take $30 billion and more than 30 years just to fix the current 
backlog of military housing deficiencies. On the bright side, the 
National Defense Authorization Act for Fiscal Year 1996 included a 
series of new authorities that allow the Department of Defense to work 
with the private sector to build and renovate military housing by 
obtaining private capital to leverage government dollars, and use a 
variety of private sector approaches to construct and refurbish 
military housing faster and at a lower cost to American taxpayers. This 
legislation was recently extended to December 2004.
    What is your opinion concerning this approach? Do you support a 
broader expansion of this initiative to include permanent authority?
    Secretary Rumsfeld. Although I have not been briefed on the law to 
which you refer, I support efforts to ensure that our servicemen and 
women have access to quality, affordable military housing. Measures to 
harness the productive potential of private industry are important to 
this end.
                                 ______
                                 
             Questions submitted by Senator Strom Thurmond
    26. Senator Thurmond. Due to the leaner Active Duty military and 
greater number of operational commitments, the DOD has increasingly 
called on the Reserves and National Guard. In 1989, Reservists and 
members of the Guard recorded one million days of duty. In each of the 
past 3 years, that figure has averaged 13 million days. This increased 
workload has had an impact on retention and recruiting. In extreme 
cases, the relationship between the reservist and his employer is 
adversely affected.
    What are your general views on the use of the Reserve components 
and, specifically, in peacekeeping operations?
    Secretary Rumsfeld. The Guard and Reserve perform admirably in the 
defense of our Nation, including deployments in peacekeeping 
operations. Although I have not had the opportunity to study this issue 
carefully, the quality of training, the status of equipment, and 
national support for the missions of the Guard and Reserve are keys to 
recruitment and retention of these essential forces. If confirmed, I 
will give priority consideration to this situation including the impact 
on civilian employment of deployed individuals.

    27. Senator Thurmond. Since your last tour in the Department of 
Defense, there has been a concerted effort to privatize many of the 
services necessary to support our Armed Forces. Among the most recent 
are the efforts to privatize military family housing and the 
installation utility systems.
    What are your views in regard to the privatization of essential 
services within the Department of Defense?
    Secretary Rumsfeld. The size and composition of DOD's facilities to 
perform equipment maintenance is an important aspect of the overall 
readiness of the Armed Forces. An appropriate balance between 
government and private sector facilities must be struck in a manner 
that assures the equipment employed by the Armed Forces will be ready 
for use when needed. This balance in turn will be affected over time by 
the nature of the technology used in military equipment. A balance will 
be reviewed to assure that capabilities essential to national defense 
that cannot reliably be provided by the private sector will be provided 
by the government sector. Moreover, critical capabilities will be 
maintained in the government sector. As noted above, private sector 
support for military housing appears to have potential for accelerated 
improvement of that housing.

    28. Senator Thurmond. With the end of the Cold War, some of the 
leading figures from the nuclear weapons programs and strategic policy 
advocated that the existing nuclear states dismantle their nuclear 
stockpile, which they considered as pointless and morally dubious 
arsenals.
    What are your views on the role of nuclear weapons in the future 
threat environment?
    Secretary Rumsfeld. Nuclear weapons remain an important element of 
U.S. and allied defense policy. That being said, President-elect Bush 
has stated that he will direct the next Secretary of Defense to 
undertake a review of the U.S. nuclear posture and associated force 
levels. If confirmed, I look forward to conducting that review.

    29. Senator Thurmond. The Nation has made the decision not to 
produce new nuclear weapons. More importantly, we no longer have the 
capability to manufacture plutonium pits on a large scale to modernize 
the existing stockpile.
    Since you have historically advocated a strong nuclear TRIAD, what 
are your concerns regarding this lack of capability to modernize our 
nuclear stockpile?
    Secretary Rumsfeld. There are real challenges associated with 
maintaining a safe, reliable, and effective nuclear weapons stockpile 
in the absence of underground nuclear testing. If confirmed, I will 
work with the Secretary of Energy and the Administrator of the National 
Nuclear Security Administration to ensure U.S. nuclear weapons are 
capable of fulfilling the missions to which they have been assigned.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                             base closures
    30a. Senator McCain. Mr. Secretary, in your answers to the advance 
questions for today's hearing, I noticed your response with regard to 
additional base closure rounds. As you are aware, Secretary Cohen has 
requested two additional rounds of base closures in each of his budget 
proposals to Congress, but so far Congress has not agreed to authorize 
any additional closures--failing to authorize 40-60 and 36-63 in the 
last 2 years--an experience not dissimilar to your experience as the 
Secretary of Defense to President Ford.
    The National Defense Panel, Secretary Cohen, nearly all the Service 
Chiefs and other respected defense experts have been consistent in 
their plea that the Pentagon be permitted to divest themselves of 
excess infrastructure beyond what was eliminated during the prior four 
rounds of base closings. Through the end of 1998, the Pentagon had 
closed 97 major bases in the United States. Since then, it has closed 
none. Moreover, the savings attained would ostensibly be used for force 
modernization purposes.
    According to our senior military leaders, the facts are the 
Department of Defense still has nearly 23 percent more base facilities 
than necessary to support our Nation's military forces.
    I say this for my colleagues' benefit: the facts are--billions of 
dollars are at stake. Department of Defense figures suggest previous 
base closures will save, after one-time closing costs, $15 billion 
through fiscal year 2001, $25 billion through fiscal year 2003, and 
$6.1 billion a year thereafter. Additional needed closures can save $20 
billion by 2015, and $3 billion a year thereafter. Sooner or later 
these surplus bases will be closed anyway. The sooner the issue is 
addressed, the greater will be the savings, that will ultimately go 
toward defense modernization and greater pay raises for 
servicemembers--two areas where President-elect Bush and I strongly 
agree.
    Previous base closure rounds have had many success stories. For 
example, after England Air Force Base closed in 1992, Alexandria, 
Louisiana, benefitted from the creation of over 1,400 jobs--nearly 
double the number of jobs lost. Across the U.S. about 60,000 new jobs 
have been created at closing military bases. At bases closed more than 
2 years, nearly 75 percent of the civilian jobs have been replaced.
    In Charleston, South Carolina, where the number of defense job 
losses, as a percentage of the work force, was greater than at any 
other base closure location, 23 major entities are reusing the former 
Navy facilities and providing more than 3,300 jobs and another 13 more 
applications are pending--adding soon even more newly created jobs to 
that number. Additionally, roughly 75 percent of the 6 million square 
feet of leasable space on the base is occupied. This is comparable to 
the successes in my home State of Arizona with the closure of Williams 
Air Force Base in the Phoenix East Valley.
    Mr. Secretary, I will again propose the questions that you 
previously addressed in the advance questions to the Senate Armed 
Services Committee. Do you believe we still have excess military 
infrastructure that can and should be reduced?
    Secretary Rumsfeld. Our base structure should fit our force 
structure requirements. As the President has noted, it appears that we 
have 23 percent in estimated excess infrastructure. We are looking at 
the issue, and will make a decision on how best to address as soon as 
we can in the review process.

    30b. Senator McCain. Do you believe it is in the best interest of 
the Defense Department to authorize additional military base closures 
and realignments could better align our military base structure to meet 
the requirements of the new century and free up resources for higher 
priority needs?
    Secretary Rumsfeld. As noted previously, our base structure should 
fit our force structure requirements. We are reviewing the current 
force structure, and will make a decision on how best to address 
mismatches as soon as we can in the review process.

    30c. Senator McCain. Should any future base closures follow the 
same basic procedures as the past four rounds?
    Secretary Rumsfeld. It is too early to determine a process, but 
when we have had the chance to review the proper force structure-
infrastructure alignment in greater detail, we will engage the 
committee and others in Congress as appropriate.

    31a. Senator McCain. Mr. Secretary, congressional legislation 
authorizing the Pentagon to close bases expired in 1995. Since then, 
Defense Secretary Cohen has repeatedly asked for new authority to 
conduct two more rounds of base closures. Ostensibly because of a 
widespread belief that the 1995 round was politicized by the Clinton 
administration, Congress repeatedly rejected efforts to authorize 
additional rounds. Last year, for instance, the Senate voted against 
legislation mandating base closures by a vote of 36-63.
    Mr. Secretary, what actions will you take to ensure that there is 
no repetition of the politicization of the base closing process as was 
evident in the cases of Kelly and McClellan Air Force Bases, 
recommended for closure in the 1995 BRAC?
    Secretary Rumsfeld. When we have established the proper 
relationship between the force structure needed to execute our national 
security strategy and the infrastructure needed to support that force, 
we will work closely with Congress to develop a process that is fair 
and true to that objective.

    31b. Senator McCain. Mr. Secretary, from your previous experience 
as Secretary of Defense, will you recommend to the President additional 
base closing rounds and what advice can you lend to some of my more 
skeptical colleagues in the House and the Senate?
    Secretary Rumsfeld. Our base structure should fit our force 
structure requirements. We are reviewing the current force structure, 
and prefer to wait until the review is further along before we decide 
to go forward with a legislative proposal seeking authority to conduct 
future base closures.
                         congressional add-ons
    32a. Senator McCain. During the last major drawdown following the 
Vietnam War, there were instances of pork-barrel spending--a phenomenon 
no doubt as old as the Republic--totaling 0.1 to 0.3 percent of the 
President's budget request or roughly about $100 to $300 million, but 
it is miniscule compared with the rampant abuse of the process today. 
During the post-Cold War drawdown, in contrast to the 1970s, spending 
for parochial purposes expanded to 2.2 percent of the President's 
defense budget request--which doesn't seem like that much money but 
represents about $5.5 to $6.0 billion annually. Now that the budget is 
on an upswing, that expansion has grown even more. Last year, for 
example, Congress added over $4 billion to the President's budget 
request. Similarly, the Defense Appropriations Bill contained over $7 
billion in unrequested and non-defense add-ons that is a net loss to 
national security of at least $3 billion. Moreover, each year during 
markup of the defense bill, this committee receives requests from 
Senators for parochial projects produced in their home state, last year 
those requests totaled $30 billion, a 25 percent increase over the 
prior year.
    Mr. Secretary, that is the state of the defense budget that you are 
inheriting, could you comment on your intended approach to dealing with 
the hundreds of member-adds that will most assuredly come your way?
    Secretary Rumsfeld. When presenting my budget plan, I will urge 
Congress to give it strong support. President Bush has emphasized that 
strategy should drive our resource decisions--I support his position.

    32b. Senator McCain. Mr. Secretary, do you see this type of 
congressional behavior of congressional add-ons at cross purposes to 
President Bush's modernization plan, which I support, that skips a 
generation of weapon systems for ``programs that propel America 
generations ahead in military technology'' and what will you try to do 
to curb these excesses?
    Secretary Rumsfeld. Our on-going reviews across a wide array of 
matters will yield information that can be developed into operational 
concepts and, from these, program decisions. I will work closely with 
Congress to seek its support for these decisions.

    33. Senator McCain. Mr. Secretary, a process evolved during the 
post-Cold War drawdown wherein the Joint Chiefs of Staff and Service 
Secretaries were asked to produce so-called Unfunded Priority Lists or 
``wish lists'' detailing where they would allocate additional funds if 
provided by Congress. These wish lists, over time, grew from several 
pages to lengthy binders. This was understandable given the degree to 
which the Armed Forces were under-funded by the Clinton administration. 
My concern, however, has to do with the degree to which the Department 
of Defense has been pressured by Members of Congress to include items 
too numerous to list here on the Unfunded Priority Lists.
    What will you do to resist such pressure and minimize pork-barrel 
spending when pressing modernization, long-term research and 
development, and readiness problems remain?
    Secretary Rumsfeld. I feel it is important that the Department 
speak with a unified voice, across the Services, in seeking to fund our 
Defense programs to achieve the President's objectives. That is the 
principle that will guide our interactions with Congress, in budgetary 
and other matters.

                    use of force: kosovo and others
    34. Senator McCain. Mr. Secretary, one of the fundamental 
unresolved questions that must be faced by every President and 
Secretary of State and Secretary of Defense is ``when to use military 
force.'' Beyond that is the equally important question of ``how to 
apply that force once the decision is made to use it.'' You are on the 
record, I believe, as having been reluctant to become militarily 
engaged in the Balkans, but once President Clinton initiated air 
strikes, as having opposed his announced decision not to use ground 
forces.
    Mr. Secretary, could you articulate for the committee your sense of 
the criteria that should guide the use of military force and, once 
force is used, how it would be employed?
    Secretary Rumsfeld. This is an issue for the President and his 
national security team, not the Secretary of Defense alone. Each case 
is unique. Some of the questions that should be discussed when 
considering the use of force include: Are the goals achievable? Do we 
have the resources? What interests are at stake? Are there constraints, 
such as the command structure, that will impact how we can carry out 
the operation? How would we characterize success? In the end, the 
President, following careful consultation with his national security 
team, must decide each case.

    35a. Senator McCain. Those of us who assailed the administration 
and NATO's conduct of gradual escalation during the Balkans campaign 
took heart in your comments of that time, particularly your reflections 
on CNN on April 4, 1999, with respect to comparisons of Kosovo to 
Vietnam, which went as follows: ``There is always a risk in gradualism. 
It pacifies the hesitant and the tentative. What it didn't do is shock 
and awe, and alter the calculations of the people you're dealing 
with.'' Similarly, during an interview with Chris Matthews, you noted 
that ``. . . it was a mistake to say that we should not use ground 
forces, because it simplifies the problem for Milosevic. . . It seems 
to me we ought to stop saying things to appease and placate our 
domestic political audiences and we ought to start behaving in a way 
that suggests to Milosevic that it's . . . in his interest to end this 
and stop ethnic cleansing and come to the negotiating table. . .''
    Mr. Secretary, do you anticipate adopting this approach as one of 
the key figures in the chain of command?
    Secretary Rumsfeld. We must approach each potential use of military 
force mindful of the unique circumstances at play. Our decisions must 
be made with an understanding of the goals we seek to achieve and our 
readiness to honestly evaluate the resources needed to achieve those 
goals.

    35b. Senator McCain. Mr. Secretary, could you offer some insight on 
the philosophical approach you intend to bring to the job of Secretary 
of Defense when the question of military deployments arise? How do you 
approach the issue of moral imperative when no compelling national 
interest is involved?
    Secretary Rumsfeld. I fundamentally believe that America has 
compelling interests as a global leader and that our interests will 
continue to be challenged in ways that will threaten this Nation's 
security. Deciding when and where to employ military forces to protect 
our interests is a matter for the President in consultation with his 
national security team. We must be a reliable ally, but resist hasty 
decisions to use force. I also believe that, by remaining strong and 
capable, we can dissuade potential adversaries from taking actions that 
will ultimately lead to far more costly consequences for both of us.

    36. Senator McCain. During the early phase of fighting in Bosnia-
Herzegovina, there existed a decision-making process, chain of command, 
and rules of engagement that virtually guaranteed failure. Our pilots 
found themselves having to receive the personal okay of the U.N. 
Secretary General and his deputy for the Balkans prior to retaliating 
against Bosnian Serb forces. In Kosovo, during Operation Allied Force, 
we witnessed the spectacle of military commanders vetting their 
tactical targeting plans through a 19-nation alliance built on 
unanimity that also limited the effectiveness of the military 
operation.
    Mr. Secretary, what policies would you propose be implemented in 
order to avoid a recurrence of such situations?
    Secretary Rumsfeld. The key to avoiding such awkward command and 
control situations in the future is to carefully review our procedures 
and come to agreements with our allies before we ever have to put those 
procedures into practice. This would entail several steps. First, we 
need to refine and update our regional contingency plans where we are 
likely to engage in combined operations within established alliances. 
For different wartime scenarios, we must define what our mission would 
be, and what would constitute success. We must also define appropriate 
target sets that support the mission. Together with our allies, we 
should define what military targets would contribute to the success of 
operations described under the various scenarios, and define rules of 
engagement for each type of target under each scenario. We must 
establish operational guidelines within the framework of each alliance. 
In addition, it is essential that we wargame each scenario, using 
realistic command and control procedures, at the highest staff levels. 
Finally, it is important to review agreements within the alliance on a 
periodic basis to ensure currency.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
    37. Senator Smith. You understandably resigned from the Space 
Commission which you chaired to focus on your nomination. However, you 
left before signing onto the report and the unanimous conclusions of 
the remaining 12 Commissioners. Do you in fact agree with the findings 
and recommendations of the Space Commission?
    Secretary Rumsfeld. I agree that the United States is increasingly 
dependent on its civil, commercial, and defense and intelligence space 
assets. With that dependence comes vulnerability to hostile acts. The 
Nation needs a capability to deter and defend against attack on space 
assets and systems.

    38. Senator Smith. The Space Commission report recommends several 
actions for the Secretary of Defense. If confirmed, will you implement 
those changes?
    Secretary Rumsfeld. If confirmed, I will give careful attention to 
these recommendations and the recommendations of several other recent 
studies and commissions on space systems.

    39. Senator Smith. There are several recommendations for the 
President and other agencies of the administration. Some are even 
suggestions for Congress.
    If confirmed, will you encourage the President, other agencies of 
the administration, and Congress to implement the changes recommended 
by the Space Commission?
    Secretary Rumsfeld. See answer above.

    40. Senator Smith. The Commission's report stated that we have not 
adequately funded a number of space activities. In particular, it noted 
that we need space control and satellite negation capability.
    Do you believe the U.S. should have an anti-satellite capability?
    Secretary Rumsfeld. The U.S. and other nations that make use of 
space face threats to the operation of their satellites. We know that 
other nations have jammed telecommunications from on-orbit satellites, 
that Russian entities market devices that can jam GPS signals, and that 
foreign satellite manufacturers market so-called ``micro satellites'' 
to other foreign countries that can be used for offensive actions 
against satellites. In light of U.S. dependence on space assets, the 
vulnerability of these assets to attack or disruption and the fact that 
others have the means of doing harm to U.S. interests in space, it 
would be contrary to U.S. security interests not to develop, test, and 
deploy the appropriate means of deterring attack on and defending space 
systems.

    41a. Senator Smith. The Commission had concerns about the Air Force 
not doing a good job of growing space experts from within the space 
community for senior leadership positions. Rather, they tend to bring 
in rated officers with little or no space experience to fill key space 
leadership positions.
    If confirmed, will you encourage the Air Force to promote more 
career space experts to senior leadership positions rather than drawing 
so heavily from the pilot community while space officers stagnate?
    Secretary Rumsfeld. Yes.

    41b. Senator Smith. Based on what you know of the emerging missile 
threat and the current administration's planned National Missile 
Defense concept, do you believe the planned concept by itself is 
sufficiently robust and capable of providing the defense you and the 
President-elect have described to the nation? When do you anticipate 
completing your review of the critical missile defense mission and 
bringing forward to Congress the robust missile defense architecture to 
protect America and our friends and allies?
    Secretary Rumsfeld. I believe it would be good to examine alternate 
and complementary architectures to the NMD system currently under 
development. I cannot now predict when that review will be completed or 
the architectures that will be found to be appropriate.
                                 ______
                                 
            Questions Submitted by Senator Olympia J. Snowe
    42. Senator Snowe. In its review of the fiscal year 2001 budget 
request, the Seapower Subcommittee took testimony from Congressional 
Research Service that indicated a $10 to $12 billion annual investment, 
depending on the actual ship mix, and an average build rate of 8.7 
ships per year is required to maintain 308 ships. However, in its 
budget request for fiscal year 2001, the administration in its Future 
Years Defense Program included only 7.5 ships per year and over the 
last 8 years of the Clinton administration requested only 4.75 ships 
per year. Congress helped raise that average to 5.5 ships per year.
    Given that the CNO has testified that 34 percent of the Navy is 
deployed at any given time and that he is hard-pressed to meet that 
requirement with the current fleet, are you committed to review the 
shipbuilding account for adequacy?
    Secretary Rumsfeld. Yes.

    43. Senator Snowe. In a New York Times article dated January 8, 
2001, the authors questioned the DOD's ability to pursue leap-ahead 
technologies while modernizing the military. The article specifically 
mentioned three programs that might be candidates for cancellation or 
postponement to pay for pursuit of leap-ahead technologies: the F-22, 
the MV-22, and the DD-21. Witnesses testified before the Seapower 
Subcommittee that the Marines have been at considerable risk in naval 
surface fire support since the retirement of the Iowa-class battleship 
and will remain so until the DD-21 joins the fleet in strength. 
Slippage of the DD-21 would increase risk to the Navy team's capability 
for forced entry operations and its ability to conduct Operational 
Maneuver From The Sea.
    Do you plan to review the resources necessary to meet naval surface 
fire support requirements of the United States Marine Corps to perform 
the missions we expect of them?
    Secretary Rumsfeld. Yes.

    44. Senator Snowe. The safety and efficacy of the Department of 
Defense Anthrax Vaccine Immunization Program (AVIP) continues to be of 
great concern to our men and women in uniform and their families. In 
light of the divisive nature of the DOD anthrax policy, do you plan to 
review this policy, and what actions might you plan to take to regain 
the trust of our service members and their families lost due to AVIP?
    Secretary Rumsfeld. I am not familiar with the details of the AVIP 
program. However, the trust of our service members and their families 
is essential to the effectiveness, morale, and welfare of the U.S. 
Armed Forces. If confirmed, I will get briefed on the program. In the 
interim, it would not be appropriate for me to comment in detail.

    45. Senator Snowe. In your 1998 commission report you highlighted 
the missile threat faced by not only our own forces, but America's 
allies like Israel as well. U.S.-Israeli cooperation on the Arrow 
missile system has been a critical component to Israel's defensive 
capabilities as well as a centerpiece for our strategic relationship. 
Also, during your service in the Ford administration you were 
supportive of Israeli security requirements.
    As Secretary, do you foresee this joint initiative continuing? Will 
you continue to facilitate Israel's qualitative military edge, 
including the provision of advanced U.S. defense technologies?
    Secretary Rumsfeld. I support continued cooperative efforts in the 
area of ballistic missile defense. I have not been briefed on the ARROW 
program in detail, however, and therefore do not believe it appropriate 
to comment on possible future directions or funding for that program.

    46. Senator Snowe. The Taiwan Relations Act declares America's 
intention to provide for the defensive capabilities of Taiwan with no 
veto by China. The Taiwan Relations Act also states that ``the 
President and Congress'' shall determine Taiwan's defense requirements.
    What recommendations to the President will you make based on the 
needs of Taiwan in order to defend itself as required by the Taiwan 
Relations Act?
    Secretary Rumsfeld. Any recommendations regarding arms sales to 
Taiwan will be made to the President. However, I understand the 
requirements of the Taiwan Relations Act and support a strong 
relationship between Taiwan and the United States, in support of 
Taiwan's need for effective self-defense capability against the threats 
posed to it.

    47. Senator Snowe. In addition to U.S. military aid to present 
recipients, as Secretary would you recommend to President Bush that 
there is a need to expand this aid? If so, do you have any regions or 
countries that you foresee need this assistance?
    Secretary Rumsfeld. I have not had an opportunity to review U.S. 
arms sales policy. If confirmed, I will assess U.S. arms sales policy, 
in conjunction with the other members of the President's national 
security team.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
    48. Senator Allard. As a member of the NRO Commission, we found 
that there is a valuable role to be played by commercial space systems 
in order to allow our defense and intelligence assets to be available 
for critical tasks.
    Do you see a role for commercial systems and will you advocate a 
clear national strategy and a commitment of funding for acquisition of 
imagery in order to take full advantage of commercial satellite 
capabilities?
    Secretary Rumsfeld. As I stated in the confirmation hearing, my 
impression is that the United States government, including the 
military, will and should increase the use of commercially available 
satellite capabilities, especially in the area of communications and 
imagery. There are a number of instances where the government might 
take advantage of commercial off-the-shelf type products and services, 
and use those products and services to good effect.

    49. Senator Allard. A concern for me is the adequate funding for 
our long lead space research and development programs--such as the 
space based radar.
    What key areas and needs do you see as a focus for technological 
development in order to move our systems to the next generation?
    Secretary Rumsfeld. I agree that there needs to be considerable 
investment in ``leading edge'' technologies. The United States cannot 
afford to lose its preeminence in science and technology.
                                 ______
                                 
             Questions Submitted by Senator Tim Hutchinson
    50. Senator Hutchinson. I am concerned that the military's basic 
pay table has become compressed over the last decade--that senior 
enlisted members of our Armed Forces are no longer receiving 
compensation commensurate with the great responsibilities placed upon 
their shoulders.
    If confirmed, will you thoroughly examine the area of compensation 
for senior enlisted members of our Armed Forces before President Bush 
sends an amended fiscal year 2002 budget request to Congress?
    Secretary Rumsfeld. Yes.

    51. Senator Hutchinson. Nearly every soldier, sailor, airman, or 
marine that I have spoken to has told me that the need to provide a 
college education for a spouse or child has become a major factor in 
most re-enlistment decisions. While I have, in the past, supported 
efforts to make Montgomery G.I. Bill benefits portable, I am not 
convinced that this would provide the best solution.
    If confirmed, will you commit yourself to working with Congress to 
explore new methods by which those who make a career of the Armed 
Forces will be able to provide college educations for their dependents?
    Secretary Rumsfeld. If confirmed, I will be pleased to work with 
you and your colleagues in the Senate and the House of Representatives 
to identify options for improving the overall morale and welfare of our 
servicemen and women, including the dependent's education option you 
have suggested.

    52. Senator Hutchinson. One of the many programmatic challenges 
facing the Department of Defense is the modernization of our Nation's 
fleet of C-130 transport aircraft.
    If confirmed, what steps will you take to ensure a modern and 
viable mission-ready C-130 force for today and for the future?
    Secretary Rumsfeld. I am aware of and appreciate the keen interest 
in the C-130J program shown by you and several of your colleagues. 
However, I have not had an opportunity to review the program, nor have 
I seen the results of the mobility requirements study you mention. If 
confirmed, I will review the study and the program.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
    53. Senator Sessions. The U.S. government is faced with the 
enormous task of destroying unexploded ordnance at munitions sites that 
have been found across the United States, most notably recently at 
Massachusetts Military Range on Cape Cod, in Massachusetts and Rocky 
Mountain Arsenal in Denver, Colorado. There are hundreds of U.S. sites 
with similar problems. These munitions and their toxic explosives can 
pose serious environmental problems both in terms of their storage or 
if they are destroyed by open burn or open detonation.
    What plans would your Department have to destroy munitions found in 
current and former U.S. bases? Will you focus on closed disposal 
technologies rather than continuation of open burn/open detonations as 
a solution to this problem? What priority would you give to the funding 
of new methods of destroying these hazardous materials, including 
finding private sector solutions to this problem that would not require 
the hazardous transport of conventional unexploded ordnance?
    Secretary Rumsfeld. I appreciate your concern about unexploded 
ordnance. However, I have not been briefed on the Department's plans 
and programs in this area, and am unable to comment at this time. If 
confirmed, these activities will be reviewed and assessed.

    54. Senator Sessions. Areas of the former Soviet Union, Central and 
Eastern Europe, and Asia have numerous outdated and hazardous munitions 
sites that could pose a proliferation problem if those munitions and 
explosives are not properly destroyed. The U.S. government currently 
funds this program in the former Soviet Union.
    Would you support the continuation of this non-proliferation 
program and an increase in budgetary allocations to help stem this 
proliferation concern? Would you support the extension of this program 
to include Central and Eastern Europe and Asia? Which areas pose a 
particular concern? Would your administration support the extension of 
non-proliferation programs to China that would help American companies 
enter this market, destroying munitions that pose an environmental 
hazard? Would you support the use of Foreign Ministry Financing Funds 
for the destruction of unexploded ordnance and chemical weapons if 
requested by an eligible country?
    Secretary Rumsfeld. I am unaware of the program to which you refer. 
If confirmed, I will undertake to have this program reviewed in light 
of your questions.
                                 ______
                                 
    [The nomination reference of Donald H. Rumsfeld follows:]
                          Nomination Reference
    [On January 20, 2001, the Senate received the Donald H. 
Rumsfeld nomination. It was not referred to the Senate Armed 
Services Committee, but was signed by the President, placed on 
the Senate Executive Calendar, and then confirmed by the full 
Senate by voice vote all on the same day. A confirmation 
hearing was held by the Senate Armed Services Committee on 
January 11, 2001.]
                                ------                                

    [The biographical sketch of Donald H. Rumsfeld follows:]

               Biographical Sketch of Donald H. Rumsfeld

    Donald Rumsfeld was born in 1932 in Chicago, Illinois, 
attended Princeton University on scholarship, served in the 
U.S. Navy (1954-1957) as an aviator, and was All Navy Wrestling 
Champion. Married in 1954, he and his wife Joyce have three 
children and five grandchildren.
    Mr. Rumsfeld is in private business and is Chairman of the 
Board of Directors of Gilead Sciences, Inc. He serves as a 
member of the boards of directors of ABB (Asea Brown Boveri) 
Ltd. (Zurich, Switzerland), Amylin Pharmaceuticals, and Tribune 
Company. He is also Chairman of the Salomon Smith Barney 
International Advisory Board and an advisor to a number of 
companies, including Investor AB of Sweden. He is currently 
Chairman of the U.S. Commission to Assess National Security 
Space Management and Organization.
    In 1962, at the age of 30, he was elected to his first of 
four terms in the U.S. Congress. In 1969, he resigned from 
Congress to join the President's Cabinet. He served as Director 
of the Office of Economic Opportunity and Assistant to the 
President, and later as Director of the Economic Stabilization 
Program and Counselor to the President. In January 1973 he was 
posted to Brussels, Belgium, as U.S. Ambassador to North 
Atlantic Treaty Organization (NATO).
    In August 1974, Mr. Rumsfeld was called back to Washington, 
DC, to serve as Chairman of the transition to the Presidency of 
Gerald R. Ford. He served as Chief of Staff of the White House 
and as a member of the President's Cabinet, 1974-1975, and as 
the 13th U.S. Secretary of Defense, 1975-1977, the youngest in 
history.
    In 1977, Mr. Rumsfeld left Washington, DC, after some 20 
years of public service and lectured at Princeton University's 
Woodrow Wilson School of International Affairs and at 
Northwestern University's Kellogg Graduate School of Management 
prior to entering business.
    In June 1977, he became Chief Executive Officer of G.D. 
Searle & Co., a worldwide pharmaceutical company, where he 
served until 1985. The turnaround there earned him awards as 
the Outstanding Chief Executive Officer in the Pharmaceutical 
Industry in 1980 and 1981. He was in private business from 1985 
to 1990. From 1990 to 1993, Mr. Rumsfeld served as Chairman and 
Chief Executive Officer of General Instrument Corporation, a 
leader in broadband and digital high-definition television 
technology. After taking the company public, Mr. Rumsfeld 
returned to private business.
    During his years in business, he has continued public 
service in a variety of federal posts including service as 
President Reagan's Special Envoy for the Middle East, and as a 
Member of the President's General Advisory Committee on Arms 
Control, and the National Economic Commission. His current 
civic activities include service on the Boards of Trustees of 
the Chicago Historical Society, Eisenhower Exchange 
Fellowships, the Hoover Institution at Stanford University, the 
Rand Corporation and the National Park Foundation. He is also a 
member of the U.S.-Russia Business Forum, and recently 
completed service as Chairman of the U.S. Government Commission 
to Assess the Ballistic Missile Threat to the United States.
    Honors include: Distinguished Eagle Scout Award (1975), 
George Catlett Marshall Award (1984), Woodrow Wilson Award 
(1985), Dwight Eisenhower Medal (1993), and eleven honorary 
degrees. In 1977, Mr. Rumsfeld was awarded the nation's highest 
civilian award, the Presidential Medal of Freedom.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Donald H. 
Rumsfeld in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Donald Henry Rumsfeld.

    2. Position to which nominated:
    U.S. Secretary of Defense.

    3. Date of nomination:
    Expected to be on January 20, 2001. Date of announcement by 
President-elect December 28, 2000.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 9, 1932; Chicago, Illinois.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Marion Joyce Pierson; December 27, 1954.

    7. Names and ages of children:
    Valerie Jeanne Rumsfeld, age 44 (born March 3, 1956)
    Marcy Kay Rumsfeld, age 40 (born March 28, 1960)
    Donald Nicholas Rumsfeld, age 33 (born June 26, 1967).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.

----------------------------------------------------------------------------------------------------------------
              From                        To            Name of School          Address             Degree
----------------------------------------------------------------------------------------------------------------
9/46............................  6/50..............  New Trier High      Winnetka, IL......  H.S. Diploma
                                                       School.
9/50............................  6/54..............  Princeton           Princeton, NJ.....  B.A.
                                                       University.
10/54...........................  1/56..............  U.S. Naval Flight   Pensacola, FL.....  Naval Aviator
                                                       School.
1956............................  1956..............  Instructors Basic   Pensacola, FL.....  Naval Flight
                                                       Training School                         Instructor
                                                       (IBTU).
1959............................  1959..............  Georgetown Law      Washington, DC....  None
                                                       Center.
1959............................  1960..............  Western Reserve     Cleveland, OH.....  None
                                                       Law School.
1963............................  1963..............  National War        Washington, DC....  N/A
                                                       College.
----------------------------------------------------------------------------------------------------------------


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

------------------------------------------------------------------------
              Dates                    Position             Company
------------------------------------------------------------------------
08/93-Present...................  Private Business..  400 N. Michigan,
                                                       #405, Chicago, IL
                                                       60611
10/90-08/93.....................  Chairman and Chief  General Instrument
                                   Executive Officer.  Corp., 181 W.
                                                       Madison St.,
                                                       Chicago, IL 60602
10/85-10/90.....................  Senior Advisor      William Blair &
                                   (part time) and     Co., 135 S.
                                   private business.   LaSalle St.,
                                                       Chicago, IL 60603
08/85-09/30/85..................  Chairman of the     G.D. Searle & Co.,
                                   Board, President    4711 Golf Road,
                                   & CEO.              Skokie, IL 60076
06/77-08/85.....................  President, CEO &    G.D. Searle & Co.,
                                   Director.           4711 Golf Road,
                                                       Skokie, IL 60076
11/3/83-04/84...................  Presidential Envoy  U.S. Government,
                                   for the Middle      Washington, DC
                                   East (part-time,
                                   temporary W.O.C.--
                                   on leave of
                                   absence from G.D.
                                   Searle & Co.).
10/82-02/83.....................  Presidential Envoy  U.S. Government,
                                   for the Law of      Washington, DC
                                   the Sea (part
                                   time--on leave of
                                   absence from G.D.
                                   Searle & Co.).
01/77-06/77.....................  Lecturer (part      Northwestern
                                   time).              Graduate School
                                                       of Mgmt. and
                                                       Princeton
                                                       University,
                                                       Woodrow Wilson
                                                       School of
                                                       International
                                                       Affairs
01/77-06/77.....................  Consultant........  G.D. Searle Co
11/18/75-01/20/77...............  Secretary of        U.S. Dept. of
                                   Defense.            Defense,
                                                       Washington, DC
08/74...........................  Chairman of Gerald  The White House,
                                   R. Ford's           Washington, DC
                                   Transition to the
                                   Presidency.
09/27/74-11/18/75...............  White House Chief   The White House,
                                   of Staff; Asst.     Washington, DC
                                   to the President;
                                   Cabinet Member.
02/02/73-12/05/74...............  U.S. Ambassador to  U.S. Dept. of
                                   NATO.               State,
                                                       Washington, DC
1971-1973.......................  Member of the       The White House,
                                   Cabinet.            Washington, DC
12/10/70-02/02/73...............  Counsellor to the
                                   President.
10/07/71-02/02/73...............  Director, Economic
                                   Stabilization
                                   Program (Cost of
                                   Living Council).
1969-1973.......................  Member of the       The White House,
                                   Cabinet.            Washington, DC
05/26/69-2/2/73.................  Asst. to the
                                   President.
05/26/69-12/10/70...............  Director, Office
                                   of Economic
                                   Opportunity.
1963-1969.......................  Member, U.S. House  U.S. Congress,
                                   of                  Washington, DC
                                   Representatives
                                   (R-IL).
1960-1962.......................  Registered          A.G. Becker & Co.
                                   Representative.     (investment
                                                       banking) Chicago,
                                                       IL
1959-1960.......................  Campaign Manager..  Hon. David
                                                       Dennison, Warren,
                                                       Ohio
1959............................  Staff Assistant,    Congressman Robert
                                   U.S. House of       Griffin (R-
                                   Representatives.    Michigan)
                                                       Washington, DC
1957-1959.......................  Administrative      Honorable David
                                   Asst., U.S. House   Dennison, Warren,
                                   of                  Ohio.
                                   Representatives.
1954-1957.......................  Naval Aviator,      U.S. Navy and then
                                   then Flight         U.S.N.R.
                                   Instructor, then
                                   Instructor of
                                   Flight
                                   Instructors.
1950-1954.......................  Midshipman........  N.R.O.T.C.
                                                       (Regular).
1949 (Summer)...................  Counselor.........  Camp Owakanze, Ft.
                                                       Williams, Canada
1949 (Xmas).....................  Mailman (part       U.S. Post Office,
                                   time).              Winnetka, IL
1948 (Summer)...................  Counselor.........  Philmont Scout
                                                       Ranch.
  (Xmas)........................  Mailman (part       U.S. Post Office,
                                   time).              Winnetka, IL
1947 (Summer)...................  Laborer,            Skokie Country
                                   construction and    Club.
                                   gardening.
  (Xmas)........................  Mailman (part       U.S. Post Office,
                                   time).              Winnetka, IL.
 
  OTHER:
1948............................  Janitor (part       Dress shop,
                                   time).              Winnetka, IL
1947............................  Rug Cleaner.......  Lewis Mothproof,
                                                       Northbrook, IL
1946............................  Gardening and snow  Winnetka, IL.
                                   shoveling.
1945............................  Newsboy, gardening  Coronado, CA.
1944............................  Newsboy, chopped    Port Orchard,
                                   wood, delivered     Washington;
                                   ice, dug clams.     Seaside, Oregon.
1943............................  Newsboy, shop boy   Elizabeth City,
                                   (fish market),      NC.
                                   raised and sold
                                   watermelons,
                                   cantaloupe and
                                   chickens.
1942............................  Newsboy, magazine   Winnetka, IL.
                                   salesman,
                                   delivery boy.
------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    This attachment represents my best recollections. It is complete to 
the best of my ability, but I suspect there may be some unintentional 
omissions.

                   APPOINTMENT DATES--DONALD RUMSFELD
------------------------------------------------------------------------
           President                     Date                Title
------------------------------------------------------------------------
Nixon..........................    5/26/69 to 2/2/73  Assistant to the
                                                       President
Nixon..........................  5/26/69 to 12/10/70  Director of the
                                                       Office of
                                                       Economic
                                                       Opportunity
Nixon..........................    4/20/70 to 2/2/73  Property Review
                                                       Board (member 4/
                                                       20/70; chairman 9/
                                                       11/71)
Nixon..........................   12/10/70 to 2/2/73  Counselor to the
                                                       President
Nixon..........................    1/20/71 to 2/2/73  Member of Domestic
                                                       Council
Nixon..........................    10/7/71 to 2/2/73  Director of the
                                                       Cost of Living
                                                       Council
Nixon..........................    2/2/73 to 12/5/74  U.S. Permanent
                                                       Representative on
                                                       the Council of
                                                       North Atlantic
                                                       Treaty
                                                       Organization with
                                                       the Rank and
                                                       Status of
                                                       Ambassador
                                                       Extraordinary and
                                                       Plenipotentiary
Ford...........................  9/27/74 to 11/18/75  Assistant to the
                                                       President
Ford...........................  11/18/75 to 1/20/77  Secretary of
                                                       Defense
Ford...........................   2/24/76 to 1/20/77  Governor of Board
                                                       of Governors,
                                                       American National
                                                       Red Cross
Reagan.........................  9/23/82 to 10/29/86  Member of the
                                                       General Advisory
                                                       Committee of the
                                                       U.S. Arms Control
                                                       & Disarmament
                                                       Agency
Reagan.........................   5/17/83 to 9/17/84  Member of the
                                                       Presidents
                                                       Council on the
                                                       Conduct of U.S.-
                                                       Japan Relations
Reagan.........................      11/3/83 (no end  Personal
                                               date)   Representative of
                                                       the President of
                                                       the U.S.A. in the
                                                       Middle East
------------------------------------------------------------------------

                   U.S. GOVERNMENT RELATED--CURRENT:

    Director of Central Intelligence--Washington, DC--Consultant (WOC) 
(7/98-)
    Congressional Policy Advisory Board, Republican Policy Committee, 
U.S. House of Representatives, Washington, DC--Member, Advisory Board 
(1/98- )
    Congressional Leadership National Security Advisory Group, 
Washington, DC--Chairman (6/22/00- )
    Senator Peter Fitzgerald Business Advisory Committee, Chicago, IL--
Member (12/98- )
    National Park Foundation, Washington, DC--Member, Board of Trustees 
(8/90-8/96) (1/93-7/94) (11/97- ); Selection Committee for Theodore 
Roosevelt Medal (3/95- ); Selection Committee for Board (6/95-4/96); 
Development Committee (1/98- ); Executive Committee (10/92-4/96)(1/98- 
); Finance Committee (10/92-4/96); New Initiatives Task Force (1/93-7/
94); Government Relations Committee (7/94-4/96); Governance Committee 
(1/98-9/98)(11/98- ); Chairman, Governance Committee (11/98-7/00).
    Lt. Governor Corinne Wood Business Advisory Committee, Chicago, 
IL--Member (3/99- )

                       FORMER ACTIVITIES (PARTIAL)
------------------------------------------------------------------------
             Approximate Dates                        Activity
------------------------------------------------------------------------
1967-1969.................................  THE JAPANESE-AMERICAN INTER-
                                             PARLIAMENTARY COUNCIL--Co-
                                             Founder, Washington, DC
1968-1968.................................  COMMITTEE TO STUDY THE
                                             ORGANIZATION OF CONGRESS
                                             FOR THE HOUSE REPUBLICAN
                                             CONFERENCE, Washington, DC--
                                             Member.
1968-?....................................  THE NAVAL ACADEMY ATHLETIC
                                             ASSOCIATION, Annapolis,
                                             Maryland--Honorary Member
1968-1969.................................  NAVAL RESERVE ASSOCIATION--
                                             Member, Chicago, IL.
1968-1969.................................  RESERVE OFFICERS
                                             ASSOCIATION--Member,
                                             Washington, DC
1977-?....................................  U.S. DEPT. OF DEFENSE,
                                             Washington, DC--Advisor
                                             (W.O.C.)
02/81-1981................................  INTERIM FOREIGN POLICY
                                             ADVISORY BOARD FOR
                                             PRESIDENT REAGAN--Member
09/82-11/86...............................  PRESIDENT REAGAN'S GENERAL
                                             ADVISORY COMMITTEE ON ARMS
                                             CONTROL (GAC), Washington,
                                             DC--Member
10/82-2/83................................  PRESIDENT REAGAN'S SPECIAL
                                             ENVOY FOR THE LAW OF THE
                                             SEA TREATY--(W.O.C.),
                                             Washington, DC
11/82-06/85...............................  PRESIDENT REAGAN'S COUNCIL
                                             FOR INTERNATIONAL YOUTH
                                             EXCHANGE, Washington, DC--
                                             Member
12/82-09/85...............................  PRESIDENT REAGAN'S COUNCIL
                                             FOR PHYSICAL FITNESS &
                                             SPORTS, Washington, DC--
                                             Special Advisor
12/82-10/90...............................  NATIONAL DEFENSE UNIVERSITY
                                             FOUNDATION, Washington, DC--
                                             Honorary Member, Board of
                                             Directors
01/83-1984................................  PRESIDENT REAGAN'S PANEL ON
                                             STRATEGIC SYSTEMS--(MX
                                             Panel)--(W.O.C.),
                                             Washington, DC--Senior
                                             Advisor.
06/83-10/84...............................  U.S. PRESIDENTIAL COMMISSION
                                             ON THE CONDUCT OF U.S./
                                             JAPAN RELATIONS (U.S.),
                                             Washington, DC--Member; and
                                             THE JOINT ADVISORY
                                             COMMISSION ON U.S./JAPAN
                                             RELATIONS (Bi-National)--
                                             (W.O.C.), Washington, DC--
                                             Member
10/83-1/89(?).............................  U.S. DEPARTMENT OF STATE,
                                             Washington, DC--Advisor/
                                             Expert (W.O.C.) (Dates are
                                             uncertain.)
11/83-4/84................................  PRESIDENT REAGAN'S SPECIAL
                                             ENVOY TO THE MIDDLE EAST--
                                             (W.O.C.), Washington, DC
03/87-06/88...............................  ASSOCIATION OF NAVAL
                                             AVIATION, Washington, DC--
                                             Member.
10/87-08/90...............................  NATIONAL (Paul Volker)
                                             COMMISSION ON PUBLIC
                                             SERVICE, Washington, DC--
                                             Member
02/88-03/89...............................  NATIONAL ECONOMIC COMMISSION
                                             (Reagan Administration),
                                             Washington, DC--Member
02/88-08/92...............................  NATIONAL DEFENSE UNIVERSITY,
                                             Washington, DC--Member,
                                             Board of Advisors
05/89-08/91...............................  COMMISSION ON U.S.-JAPAN
                                             RELATIONS (U.S.-Japan
                                             2000)--Member
08/89-2/90................................  NATIONAL ACADEMY OF SCIENCE,
                                             Washington, DC--Member,
                                             Panel on the Future Design
                                             and Implementation of U.S.
                                             National Security Export
                                             Controls
1992-1994.................................  INTERNATIONAL REPUBLICAN
                                             INSTITUTE, Washington, DC--
                                             Member
03/92-10/93...............................  U.S. FEDERAL COMMUNICATIONS
                                             COMMISSION--HIGH DEFINITION
                                             TELEVISION ADVISORY
                                             COMMITTEE
12/97-7/98................................  COMMISSION TO ASSESS THE
                                             BALLISTIC MISSILE THREAT TO
                                             THE UNITED STATES,
                                             Washington, DC--Chairman
2/99-6/99.................................  PANEL TO ASSESS THE
                                             CAPABILITIES FOR DOMESTIC
                                             RESPONSE TO TERRORIST ACTS
                                             INVOLVING WEAPONS OF MASS
                                             DESTRUCTION (RAND)--
                                             Washington, DC
1/99-11/00................................  U.S. TRADE DEFICIT REVIEW
                                             COMMISSION--Washington, DC--
                                             Commissioner
6/00-12/00................................  U.S. COMMISSION TO ASSESS
                                             NATIONAL SECURITY SPACE
                                             MANAGEMENT AND
                                             ORGANIZATION, Washington,
                                             DC--Chairman
------------------------------------------------------------------------


                   SELECTED U.S. GOVERNMENT ACTIVITIES
------------------------------------------------------------------------
                    Approx. Dates
-----------------------------------------------------      Activity
              From                        To
------------------------------------------------------------------------
Sep-50..........................  Jun-54............  Midshipman,
                                                       N.R.O.T.C.
Jan-54..........................  Jan-57............  Naval Officer,
                                                       Ensign/LTJG
Nov-57..........................                      Honorable
                                                       discharge from
                                                       the U.S. Navy
Nov-57..........................  1989..............  Naval Reserves,
                                                       Captain/USNR-
                                                       Retired
Dec-57..........................  Jan-59............  Administrative
                                                       Assistant to
                                                       Congressman David
                                                       Dennison (R-OH)
1959............................  1959..............  Staff Assistant to
                                                       Congressman
                                                       Robert Griffin (R-
                                                       MI)
Jan-63..........................  Apr-69............  Member (R-IL),
                                                       U.S.House of
                                                       Representatives,
                                                       88th Congress
Jan-63..........................  Apr-69............  Member, House
                                                       Committee on
                                                       Science &
                                                       Astronautics
Jan-63..........................  Jan-65............  Member,
                                                       Subcommittee on
                                                       Advanced Research
                                                       & Technology
Jan-63..........................  Jan-65............  Member,
                                                       Subcommittee on
                                                       Tracking & Data
                                                       Acquisition
Jan-65..........................  Apr-69............  Member,
                                                       Subcommittee on
                                                       Manned Space
                                                       Flight
1965............................  2000..............  Member, 88th
                                                       Congressional
                                                       Club
Jan-65..........................  Jan-67............  Member, House
                                                       Committee on
                                                       Foreign
                                                       Operations &
                                                       Government
                                                       Information
Jan-65..........................  Jan-67............  Member, Government
                                                       Operations
                                                       Subcommittee on
                                                       Legal & Monetary
                                                       Affairs
Jan-67..........................  Apr-69............  Member, Government
                                                       Operations
                                                       Subcommittee on
                                                       Military
                                                       Operations
Jan-67..........................  Apr-69............  Member, Joint
                                                       Economic
                                                       Committee
Jan-67..........................  Apr-69............  Member, Joint
                                                       Economic
                                                       Committee
                                                       Subcommittee on
                                                       Economy in
                                                       Government
Jan-67..........................  Apr-69............  Member, Joint
                                                       Economic
                                                       Committee
                                                       Subcommittee on
                                                       Economic
                                                       Statistics
Jan-67..........................  Apr-69............  Member, Joint
                                                       Economic
                                                       Committee
                                                       Subcommittee on
                                                       Fiscal Policy
Jan-67..........................  Apr-69............  Member, Joint
                                                       Economic
                                                       Committee
                                                       Subcommittee on
                                                       Inter-American
                                                       Economic
                                                       Relationships
1967............................                      President of
                                                       Republican
                                                       Members, 88th
                                                       Congress, U.S.
                                                       House of
                                                       Representatives
1968............................  1969..............  Member,
                                                       Presidential
                                                       Transition Team
                                                       for President-
                                                       Elect Richard
                                                       Nixon
Apr-69..........................  Jan-73............  Member,
                                                       President's
                                                       Cabinet (Nixon)
May-69..........................  Feb-73............  Assistant to the
                                                       President (Nixon)
May-69..........................  Dec-70............  Director, Office
                                                       of Economic
                                                       Opportunity
Apr-70..........................  Feb-73............  Member, Property
                                                       Review Board.
                                                       Chairman (9/11/71-
                                                       2/73)
Dec-70..........................  Feb-73............  Counselor to the
                                                       President (Nixon)
Jan-71..........................  Feb-73............  Member, Domestic
                                                       Council
Oct-71..........................  Feb-73............  Director, Economic
                                                       Stabilization
                                                       Program (Cost of
                                                       Living Council)
Feb-73..........................  Dec-74............  U.S. Ambassador to
                                                       NATO, Brussels,
                                                       Belgium
1974............................    ................  Chairman of the
                                                       Presidential
                                                       Transition Team
                                                       for Gerald Ford
1974............................  1975..............  Member,
                                                       President's
                                                       Cabinet (Ford)
1974............................  1975..............  White House Chief
                                                       of Staff
Sep-74..........................  Nov-75............  Assistant to the
                                                       President (Ford)
Nov-75..........................  Jan-77............  U.S. Secretary of
                                                       Defense
Feb-76..........................  Jan-77............  Governor, American
                                                       National Red
                                                       Cross Board of
                                                       Governors
1977............................  1980..............  Consultant, U.S.
                                                       Department of
                                                       Defense (W.O.C)
1980............................                      Member of Ronald
                                                       Reagan's Foreign
                                                       and Defense
                                                       Policy Advisory
                                                       Committee
1981............................                      Member, Interim
                                                       Foreign Policy
                                                       Advisory Board
                                                       for President
                                                       Reagan
1982............................  1983..............  Senior Advisor to
                                                       Commission on
                                                       Strategic Systems
                                                       (Scowcroft MX
                                                       Panel), (W.O.C)
Sep-82..........................  (?)...............  Member, U.S.
                                                       General Advisory
                                                       Committee on Arms
                                                       Control (W.O.C.)
Oct-82..........................  Feb-83............  Presidential Envoy
                                                       for the Law of
                                                       the Sea Treaty
May-83..........................  Sep-84............  Member, U.S.
                                                       Presidential
                                                       Commission on
                                                       U.S.-Japan
                                                       Relations
                                                       (W.O.C.)
May-83..........................  Sep-84............  Member, U.S. the
                                                       Joint Advisory
                                                       Commission on
                                                       U.S.-Japan
                                                       Relations
                                                       (W.O.C.)
Nov-83..........................  Jan-89............  Consultant/Expert
                                                       Advisor, U.S.
                                                       Department of
                                                       State (W.O.C.)
                                                       (dates uncertain)
Nov-83..........................  Apr-84............  President Reagan's
                                                       Personal
                                                       Representative to
                                                       the Middle East
Feb-88..........................  Mar-89............  Member, National
                                                       Economic
                                                       Commission,
                                                       Washington, DC
Aug-90..........................  Aug-96............  Member, Board of
                                                       Trustees,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Nov-97..........................  Dec-00............  Member, Board of
                                                       Trustees,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Oct-92..........................  Apr-96............  Member, Executive
                                                       Committee,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Oct-92..........................  Apr-96............  Member, Finance
                                                       Committee,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Mar-95..........................  Jan-01............  Member, Selection
                                                       Committee for
                                                       Theodore
                                                       Roosevelt Medal,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Jan-93..........................  Ju1-94............  Member, New
                                                       Initiatives Task
                                                       Force, National
                                                       Park Foundation,
                                                       Washington, DC
Ju1-94..........................  Apr-96............  Member, Government
                                                       Relations
                                                       Committee
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Jun-95..........................  Apr-96............  Member, Selection
                                                       Committee for
                                                       Board, National
                                                       Park Foundation,
                                                       Washington, DC
Jan-98..........................  Sep-98............  Member, Governance
                                                       Committee,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Jan-98..........................  Jan-01............  Member,
                                                       Development
                                                       Committee,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Jan-98..........................  Jan-01............  Member, Executive
                                                       Committee,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Ju1-98..........................  Jul-00............  Chairman,
                                                       Governance
                                                       Committee,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Nov-98..........................  Jan-01 ...........  Member, Governance
                                                       Committee,
                                                       National Park
                                                       Foundation,
                                                       Washington, DC
Jan-98..........................  Jan-01............  Member,
                                                       Congressional
                                                       Policy Advisory
                                                       Board, Republican
                                                       Policy Committee,
                                                       House of
                                                       Representatives,
                                                       Washington, DC
Ju1-98..........................  Jan-01............  Consultant to the
                                                       Director of
                                                       Central
                                                       Intelligence,
                                                       Washington, DC
Jan-99..........................  Nov-00............  Member, U.S. Trade
                                                       Deficit Review
                                                       Commission,
                                                       Washington, DC
Jun-00..........................  Jan-01............  Chairman,
                                                       Congressional
                                                       Leadership
                                                       National Security
                                                       Advisory Group,
                                                       Washington, DC
Jun-00..........................  Dec-00............  Chairman, U.S.
                                                       Commission to
                                                       Assess National
                                                       Security Space
                                                       Management and
                                                       Organization,
                                                       Washington, DC
------------------------------------------------------------------------


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    This attachment represents my best recollections. It is complete to 
the best of my ability, but I suspect there may be some unintentional 
omissions.
                           current activities
    *Organizational affiliations which I might wish to continue during 
the term of my appointment
    **Investments in entities which I might wish to continue during the 
term of my appointment.

    BUSINESS:
    BOARDS OF DIRECTORS: PUBLIC COMPANIES

    ABB Asea Brown Boveri, Ltd., Zurich, Switzerland--Member, Board of 
Directors (6/99- ); Nominating Committee (12/99- )
    AMYLIN PHARMACEUTICALS, La Jolla, California--Member, Board of 
Directors (11/91-9/96), (9/99- ), Advisor (9/96-10/99)
    GILEAD SCIENCES, INC., Foster City, California--Chairman, Board of 
Directors (1/97- ); Member, Board of Directors (7/88- ); Audit 
Committee (4/89-97); Compensation Committee (4/91-97)
    TRIBUNE COMPANY, Chicago, Illinois--Member, Board of Directors (7/
92- ); Executive Committee (5/96- ); Audit Committee (7/92-5/95); 
Governance and Compensation Committee (5/95- ); Incentive Compensation 
Subcommittee of the Governance and Compensation Committee (5/96-5/99); 
Finance Committee (7/92-5/95); Technical Advisory Committee (9/92-2/
00)--Chairman (5/95-2/00); [Leave of Absence from 7/8/96 to 11/6/96].

    BOARDS OF DIRECTORS: PRIVATE COMPANIES

    OVERX, INC., Chicago, IL--Member, Board of Directors (7/99- ); 
Compensation Committee (10/99-12/99)
    *,**SHOTPUT HOLDINGS, INC. (Owned 100 percent by Donald Rumsfeld to 
hold fractional interest in aircraft that are operated and maintained 
by a third-party), Chicago, IL--Member, Board of Directors and 
President (11/95- ).

    ADVISORY RELATIONSHIPS: PUBLIC COMPANIES

    INVESTOR AB, Stockholm, Sweden--Advisor (1/94- )
    METRICOM, INC., Los Gatos, California--Member, Advisory Board (1/
94- )
    NVIDIA, Sunnyvale, California--Business Advisor (2/98- )
    SALOMON SMITH BARNEY, New York, New York--Chairman, International 
Advisory Board (11/98- ).

    ADVISORY BOARDS: PRIVATE COMPANIES

    THE HAMILTON GROUP, Washington, DC.--Member, Advisory Board (2/97- 
)
    TRANSACTION INFORMATION SYSTEMS (TIS), New York. NY--Advisory Board 
(4/99- )
    THESCIENCE.COM--Menlo Park, CA--Advisory Board (4/00- ).

    U.S. GOVERNMENT RELATED

    DIRECTOR OF CENTRAL INTELLIGENCE--Washington, DC--Consultant 
(WOC)(7/98- ).
    CONGRESSIONAL POLICY ADVISORY BOARD, Republican Policy Committee, 
U.S. House of Representatives, Washington, DC--Member, Advisory Board 
(1/98- ).
    CONGRESSIONAL LEADERSHIP NATIONAL SECURITY ADVISORY GROUP, 
Washington, DC--Chairman (6/22/00- )
    SENATOR PETER FITZGERALD BUSINESS ADVISORY COMMITTEE, Chicago, IL--
Member (12/98- )
    NATIONAL PARK FOUNDATION, Washington, DC--Member, Board of Trustees 
(8/90-8/96) (1/93-7/94) (11/97- ); Selection Committee for Theodore 
Roosevelt Medal (3/95- ); Selection Committee for Board (6/95-4/96); 
Development Committee (1/98- ); Executive Committee (10/92-4/96)(1/98- 
); Finance Committee (10/92-4/96); New Initiatives Task Force (1/93-7/
94); Government Relations Committee (7/94-4/96); Governance Committee 
(1/98-9/98)(11/98- ); Chairman, Governance Committee (11/98-7/00)
    U.S. COMMISSION TO ASSESS NATIONAL SECURITY SPACE MANAGEMENT AND 
ORGANIZATION, Washington, DC--Chairman (6/00-12/00).
    LT. GOVERNOR CORINNE WOOD BUSINESS ADVISORY COMMITTEE, Chicago, 
IL--Member (3/99- ).

    BOARDS OF DIRECTORS: NOT FOR PROFIT ORGANIZATIONS

    CHICAGO HISTORICAL SOCIETY, Chicago, Illinois--Member, Board of 
Trustees (7/97- ); Exhibitions Committee (10/97-11/99); Finance 
Committee (10/97-4/00)
    *DHR FOUNDATION, Chicago, Illinois--President (12/85- ). (Possibly 
without investment control)
    EISENHOWER EXCHANGE FELLOWSHIPS, Philadelphia, Pennsylvania--
Chairman Emeritus (5/93- ); Chairman, Board of Trustees (5/86-5/93); 
Executive Committee (5/93-5/95)
    EMPOWER AMERICA, New York, New York--Member, Board of Directors (1/
93- )
    *GERALD R. FORD FOUNDATION, Grand Rapids, Michigan--Member, Board 
of Trustees (9/81- ); Awards and Grants Committee (3/82-7/90); Program 
Committee (7/90-7/92); Endowment/Development Committee (7/92- )
    HOOVER INSTITUTION ON WAR, REVOLUTION AND PEACE, Stanford, 
California--Member, Board of Overseers (8/83-2/87, 7/88-6/94 & 7/97- ); 
Finance Committee (7/97-3/98); Nominating Committee (7/97- ); Executive 
Committee (4/98- )
    JAPAN CENTER FOR INTERNATIONAL EXCHANGE, Japan--Member, Board of 
Trustees (1990- ).
    RAND CORPORATION, Santa Monica, California--Chairman, Board of 
Trustees (4/81-4/86)(4/95-12/96); Member, Board of Trustees (4/77-4/
87)(4/88-4/98)(4/99- ); Executive Committee (4/77-4/87) (4/88-4/98)(4/
99- ); Member, Audit Committee (4/95-4/98)(4/99-4/00); Endowment Fund 
Subcommittee (4/95-12/96); Corporate Development Advisory Committee (7/
904/98- ); Chairman, Nominating Committee (4/97-4/98); Member, 
Nominating Committee (4/78-4/87 & 4/95-4/98); and Ad Hoc Committee for 
the National Defense Research Institute (4/94-11/94); Member, Corporate 
Development Advisory Committee (7/90-4/98); President's Council (9/93-
4/98); RAND Graduate School Committee (4/95-4/98); Member, Advisory 
Committee of the Center for Asia-Pacific Policy (5/96-4/98); Member, 
Long-Term Investment Fund Subcommittee (4/99- ); Member, Ad Hoc Venture 
Advisory Committee (7/99- ). RAND Transition 2001, Washington, DC--
Panel Member (1/00-12/00). [Took leave of absence as Chairman/Member of 
the Board of Trustees of RAND from 6/96-12/96.]
    RAND Russian-American Business Leaders Forum, Santa Monica, 
California--Member (11/97- )
    SMITH RICHARDSON FOUNDATION, New York, New York--Member, Grant 
Advisory Committees--Domestic (6/98-12/99); Foreign Policy (6/98- )
    THE NATIONAL SECURITY FUNDERS INSTITUTE, New York, New York--
Advisory Board (3/00- ).
    UNIVERSITY OF CHICAGO, Chicago, Illinois--Member, Department of 
Economics Chairman's Council (6/97- )
    *AMERICAN ACADEMY OF DIPLOMACY, Washington, DC--Member (10/83- )
    BRETTON WOODS COMMITTEE, Washington, DC--Member (7/96- )
    CHICAGO COUNCIL ON FOREIGN RELATIONS, Chicago, Illinois--Member (6/
93- ). (Member, Board of Directors, 5/85-6/92)
    *COUNCIL OF AMERICAN AMBASSADORS, Washington, DC--Member (8/83- )
    FIRST FLIGHT CENTENNIAL FOUNDATION, Raleigh-Durham Airport, NC (6/
99- )
    *FORMER MEMBERS OF THE U.S. CONGRESS, Washington, DC.--Member 
(1975- )
    INTERNATIONAL INSTITUTE FOR STRATEGIC STUDIES (IISS), London, 
England--Member (6/78- )
    THE MARSH INSTITUTE (former Congressman John Marsh; D-VA), 
Shenandoah University, Winchester, Virginia--Member, Honorary Committee 
(11/98- )
    *NATIONAL ACADEMY OF PUBLIC ADMINISTRATION (NAPA), Washington, 
DC.--Member (9/81- )
    NATIONAL STRATEGY FORUM, Chicago, Illinois--Member (9/83- ).

    ADVISORY:

    ALEXIS de TOCQUEVILLE INSTITUTION--NATIONAL SECURITY PROGRAM, 
Arlington, VA--Member, Senior Advisory Board (9/93- )
    CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES--The Global 
Organization on Crime, Washington, DC.--Member, Steering Committee (11/
97- )
    COMMITTEE FOR THE COMMON DEFENSE, Arlington, Virginia--Senior 
Advisory Board member (9/93- )
    GEORGE WASHINGTON UNIVERSITY, Washington, DC.--Member, Committee 
for Democracy in Russia (4/96- )
    INTERNATIONAL RESCUE COMMITTEE, New York, New York--Member, 
International Advisory Board (6/88- ); Member Board of Trustees (6/86-
6/88)
    THE JAMESTOWN FOUNDATION, Washington, DC.--Member, Advisory Board 
(10/85- )
    JAPAN CENTER FOR INTERNATIONAL EXCHANGE, INC. (JCIE/USA), New York, 
New York--Board of Trustees (10/92- )
    JOHN E. MOSS (former Congressman John Moss; D-CA) FOUNDATION 
CONGRESSIONAL ADVISORY COMMITTEE, Chicago, IL--Member (1/99- )
    THE WASHINGTON INSTITUTE STUDY GROUP ON U.S. MIDDLE EAST POLICY 
STEERING COMMITTEE, Washington, DC--Member (2/00- ).

    POLITICAL ACTIVITIES:

    42ND WARD REPUBLICAN ORGANIZATION, Chicago, Illinois--Member (9/85- 
).

    OTHER:

    *ALFALFA CLUB, Washington, DC--Member (1976- )
    *BOHEMIAN CLUB, San Francisco, California--Member (12/86- ); H.B. 
Camp (8/87- )
    *CAPITOL HILL CLUB, Washington, DC--Member (5/85- )
    *CASTLE PARK PLATFORM TENNIS ASSOCIATION, Castle Park, Michigan--
Member (1980- )
    *COMMERCIAL CLUB, Chicago, IL--Member (3/79- ). Executive Committee 
(5/92-5/93)
    *88TH CONGRESSIONAL CLUB, Washington, DC--Member (1965- )
    *THE FEBRUARY GROUP (President Nixon Administration Alumni), 
Alexandria, Virginia--Member (4/91- )
    THE 410 CLUB, Chicago, Illinois--Member (12/93- )
    *FOURTH PRESBYTERIAN CHURCH, Chicago, Illinois--Member (9/90- )
    *FRIENDS OF PRINCETON WATER POLO, Princeton, New Jersey--Member
    *FRIENDS OF PRINCETON WRESTLING COMMITTEE, Princeton, New Jersey--
Member (7/96- )
    OUTSTANDING AMERICANS SELECTION COMMITTEE, National Wrestling Hall 
of Fame, Stillwater, Oklahoma--Member (10/97- )
    *PRINCETON CLUB OF CHICAGO, Chicago, Illinois--Member (10/91- ). 
Honorary member, Board of Directors. Awards Committee (06/93-06/94)
    *PRINCETON CLUB OF NEW YORK, New York, New York--Member (4/79-10/
91, reinstated 4/93- )
    *RACQUET CLUB OF CHICAGO, Chicago, Illinois--Member (1/86- )
    *REAGAN ALUMNI ASSOCIATION, Alexandria, Virginia--Member (1990- )
    *SOS CLUB, Washington, DC.--Member (1964- ).

    FIDUCIARY:

    *DONALD H. RUMSFELD REVOCABLE TRUST u/a/d October 6, 1978, as 
amended (1978- )
    *DONALD H. RUMSFELD 1998 GRANTOR RETAINED ANNUITY TRUST (1998- ).

    INVESTMENT RELATIONSHIPS:

    The entities listed under this heading overwhelmingly represent 
investments in which I have no active role. My participation is 
predominately that of a passive investor
    **BIOTECHNOLOGY VENTURE PARTNERS, L.P., San Francisco, CA--Limited 
Partner (1995- )
    **BRENTWOOD ASSOCIATES VII, L.P., Los Angeles, CA--Limited Partner 
(1995- )
    **BRENTWOOD ASSOCIATES VIII, L.P., Los Angeles, CA--Limited Partner 
(1997- )
    **BRENTWOOD ASSOCIATES IX, L.P., Los Angeles, CA--Limited Partner 
(1998- )
    **CERBERUS INSTITUTIONAL PARTNERS, L.P., New York, NY--Limited 
Partner (1999- )
    **CHENGWEI VENTURES FUND I, L.P., Shanghai, China--Limited Partner 
(2000- )
    **COMPASS I, L.P., Chicago, IL--Limited Partner (1997- ).
    **CONVERGENCE CAPITAL GROUP, L.P., San Francisco, CA--Limited 
Partner (2000- )
    **DEERFIELD PARTNERS, L.P., New York, NY--Limited Partner (1994- ).
    **FLAG GROWTH CAPITAL, L.P., Stamford, CT--Limited Partner (2000- )
    **FLAG VENTURE PARTNERS IV, L.P., Stamford, CT--Limited Partner 
(2000- )
    **FLC XXX PARTNERSHIP, New York, NY--General Partner (1998- )
    **HAMILTON TECHNOLOGY VENTURES, L.P., San Diego, CA--Limited 
Partner (2000- ). 
    **JORD PARTNERSHIP, Schaumburg, IL--General Partner (1990- )
    **KINGSBURY CAPITAL PARTNERS, L.P. III, San Diego, CA--Limited 
Partner (1998- )
    **LASALLE RECOVERY VENTURE LIMITED PARTNERSHIP, Chicago, IL--
Limited Partner (1994- )
    **LAZY O RANCH LTD. PARTNERSHIP, Schaumburg, IL--Limited Partner 
(1988- )
    **LCOR, INC., Schaumburg, IL--50 percent shareholder (1996- )
    **LLANO HOT SPRINGS PARTNERSHIP, Taos, NM--General Partner (1992- )
    **MAVERICK CAPITAL, Dallas, TX--Limited Partner (1997- )
    **MUTUALFUNDS.COM, Boston, MA--Limited Liability Company Member 
(1999- )
    **OCM OPPORTUNITIES FUND III, L.P., Los Angeles, CA--Limited 
Partner (1999- )
    **OCM OPPORTUNITIES FUND, L.P., Los Angeles, CA--Limited Partner 
(1995- )
    **OPTION ADVANTAGE PARTNERS, L.P., San Francisco, CA--Limited 
Partner (2000 )
    **POLARIS VENTURE PARTNERS III, L.P., Waltham, MA--Limited Partner 
(2000- )
    **R. CHANEY & PARTNERS III L.P., Houston, TX--Limited Partner 
(1997- )
    **R. CHANEY & PARTNERS IV, L.P., Houston, TX--Limited Partner 
(1998- )
    **ROBERTSON STEPHENS RESIDENTIAL FUND, L.P., San Francisco, CA--
Limited Partner (1994- )
    **SCF PARTNERS III, L.P., Houston, TX--Limited Partner (1995- )
    **SCF PARTNERS IV, L.P., Houston, TX--Limited Partner (1998- )
    **SILVER LAKE SPECIAL TRUST, New York, NY--Limited Partner (1999- )
    **STINSON CAPITAL PARTNERS, L.P., San Francisco, CA--Limited 
Partner (1998- )
    **SUMMIT VENTURES IV, L.P., Boston, MA--Limited Partner (1995- )
    **TECOLOTE LAND LLC, Schaumburg, IL--Limited Liability Company 
Member (2000- )
    **THOMAS H. LEE FUND V, L.P., Boston, MA--Limited Partner (2000- )
    **TIGER MANAGEMENT L.L.C., New York, NY--Limited Partner (1993- )
    **TRANSPAC CAPITAL 1996 INVESTMENT TRUST, Tortola, British Virgin 
Islands--Limited Partner (1997- )
    **TWP CEO FOUNDERS' CIRCLE (QP), L.P., San Francisco, CA--Limited 
Partner (1999- ).
    **VECTOR LATER STAGE EQUITY FUND II, L.P., Deerfield, IL--Limited 
Partner (1997- )
    **WASHINGTON CAPITAL PARTNERS, L.L.C., Washington, DC--Limited 
Liability Company Member (2000- )
    **YBR ASSOCIATES LIMITED PARTNERSHIP, Chicago, IL--General Partner 
(1987- )
    **YBR ASSOCIATES LIMITED PARTNERSHIP II, Chicago, IL--Limited 
Partner (1992- )

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    See Question 11.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    See Attachment A-13(a)
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    This attachment represents my best recollections. It is complete to 
the best of my ability, but I suspect there may be some unintentional 
omissions.

                            AWARDS AND HONORS
------------------------------------------------------------------------
                   Date                             Awards/Honors
------------------------------------------------------------------------
1947......................................  Eagle Scout Award
1948......................................  Elected Vice President of
                                             Junior Class, New Trier
                                             High School, Winnetka,
                                             Illinois
1949-50...................................  Elected Vice President of
                                             the Tri-Ship Club, New
                                             Trier High School,
                                             Winnetka, Illinois
1949-50...................................  Awarded the Fathers Club
                                             Award as the Outstanding
                                             Wrestler in 1949 and in
                                             1950, New Trier High
                                             School, Winnetka, Illinois
1949-50...................................  Elected Co-Captain of the
                                             New Trier High School
                                             Varsity Wrestling Team
                                             (State Champions),
                                             Winnetka, Illinois
1950......................................  Awarded scholarship to
                                             Princeton University,
                                             Princeton, New Jersey
1950-51...................................  Awarded the Hooker Trophy as
                                             the Outstanding Freshman
                                             Wrestler, Princeton
                                             University, Princeton, New
                                             Jersey
1951-54...................................  Selected in a national
                                             competition for an NROTC
                                             Regular Scholarship,
                                             Princeton University,
                                             Princeton, New Jersey
1953......................................  Elected Captain, Princeton
                                             University Varsity 150 lb.
                                             Football Team, Princeton,
                                             New Jersey
1953......................................  Elected Captain of the
                                             Princeton University
                                             Varsity Wrestling Team,
                                             Princeton, New Jersey
1953-54...................................  Awarded the Triede Award as
                                             the Outstanding Varsity
                                             Wrestler in 1953 and in
                                             1954, Princeton University,
                                             Princeton, New Jersey
1/55......................................  Designated Naval Aviator
1956......................................  Won the All Navy Wrestling
                                             Championship title at 147
                                             lbs
1956......................................  Won the Olympic District
                                             Wrestling Championship at
                                             160 lbs
1956......................................  Selected as a Flight
                                             Instructor in the
                                             Instructor's Basic Training
                                             Group, U.S. Navy,
                                             Pensacola, Florida
1962......................................  Elected to the U.S.
                                             Congress, 13th District of
                                             Illinois
1964......................................  Re-elected to the U.S.
                                             Congress, 13th District of
                                             Illinois
1964-66...................................  Awarded the Watchdog of the
                                             Treasury Award, by the
                                             National Association of
                                             Businessmen in 1964, 1966
                                             and 1968
1965......................................  Selected as one of the ten
                                             Outstanding Young Men by
                                             the Chicago Chamber of
                                             Commerce & Industry,
                                             Chicago, Illinois
1966......................................  Re-elected to the U.S.
                                             Congress, 13th District of
                                             Illinois
1967-68...................................  Elected President of the
                                             88th Club (Republican
                                             Members of the U.S.
                                             Congress who were elected
                                             in 1962)
1968......................................  Re-elected to the U.S.
                                             Congress, 13th District of
                                             Illinois, by the highest
                                             percentage (76) of all
                                             Congressmen in the U.S
1975......................................  Awarded the Distinguished
                                             Eagle Scout Award
1975......................................  Awarded the Opportunity
                                             Industrial Centers (OIC)
                                             Executive Government Award,
                                             presented by Rev. Leon
                                             Sullivan
5/18/75...................................  Awarded an Honorary Doctor
                                             of Laws Degree--Illinois
                                             College, Jacksonville,
                                             Illinois
5/25/75...................................  Awarded an Honorary Doctor
                                             of Laws Degree--Park
                                             College, Kansas City,
                                             Missouri
6/7/75....................................  Awarded an Honorary Doctor
                                             of Laws Degree--Lake Forest
                                             College, Lake Forest,
                                             Illinois
10/2/76...................................  Awarded the Leadership
                                             Citation for Outstanding
                                             Public Service, presented
                                             by the American Friends of
                                             the Hebrew University of
                                             Jerusalem
1/10/77...................................  Awarded the Presidential
                                             Medal of Freedom--with
                                             distinction--the Nation's
                                             highest civilian award,
                                             Washington, D.C
3/17/80...................................  Awarded the Gold Medal as
                                             the Outstanding Chief
                                             Executive Officer in the
                                             Pharmaceutical Industry,
                                             presented by Wall Street
                                             Transcript
1981......................................  Received the Northwest
                                             Suburban 1981 ``Good
                                             Scout'' Award, presented by
                                             Northwest Suburban (Ill.)
                                             Boy Scouts
2/23/81...................................  Awarded the Bronze Medal as
                                             the #3 Outstanding Chief
                                             Executive Officer in the
                                             Pharmaceutical Industry,
                                             presented by Wall Street
                                             Transcript
3/11/81...................................  Presented the Outstanding
                                             Chief Executive Officer
                                             Award in the Pharmaceutical
                                             Industry, by Financial
                                             World
4/81......................................  Elected Chairman of the
                                             Board of Trustees of The
                                             RAND Corporation, Santa
                                             Monica, California
4/12/81...................................  Awarded an Honorary Doctor
                                             of Laws Degree--Tuskegee
                                             Institute, Tuskegee,
                                             Alabama
5/16/81...................................  Awarded an Honorary Doctor
                                             of Science in Business
                                             Administration Degree--
                                             Bryant College, Smithfield,
                                             Rhode Island
9/81......................................  Elected to the National
                                             Academy of Public
                                             Administration
1/25/82...................................  Awarded a Silver Medal as
                                             the #2 Outstanding Chief
                                             Executive Officer in the
                                             Pharmaceutical Industry,
                                             presented by Wall Street
                                             Transcript
1/31/83...................................  Awarded the Sliver Medal as
                                             the #2 Chief Executive
                                             Officer in the
                                             Pharmaceutical Industry,
                                             presented by Wall Street
                                             Transcript
4/1/83....................................  Awarded the Executive of the
                                             Year Award, by the
                                             University of Arizona
                                             Business Advisory Council,
                                             Tucson, Arizona
5/6/83....................................  Awarded the Invest-in-
                                             America Eagle Award for
                                             dedication to the country's
                                             enterprise system
5/26/83...................................  Presented the City Club of
                                             Chicago 80th Anniversary
                                             Award honoring Outstanding
                                             Chicagoans
7/9/83....................................  Presented the Golden Plate
                                             Award, by American Academy
                                             of Achievement
10/17/84..................................  Awarded the George Catlett
                                             Marshall Medal, by the U.S.
                                             Army Association,
                                             Washington, DC
2/16/85...................................  Awarded the Woodrow Wilson
                                             Medal, by Princeton
                                             University, Princeton, New
                                             Jersey
3/5/85....................................  Presented the Marketing Man
                                             of the Year Award, by the
                                             Commercial Development
                                             Association, Inc
9/27/85...................................  Awarded an Honorary Doctor
                                             of Laws Degree, by the
                                             National College of
                                             Education, Evanston,
                                             Illinois
11/20/85..................................  Presented the Shelby Cullom
                                             Davis Award, by the Ethics
                                             & Public Policy Center,
                                             Washington, DC
4/28/86...................................  Presented the Award of Merit
                                             for Entrepreneurship from
                                             the Wharton School of
                                             Business of the University
                                             of Pennsylvania,
                                             Philadelphia, Pennsylvania
7/86......................................  Awarded the George
                                             Washington Honor Medal for
                                             Excellence in Public
                                             Address, by the Freedoms
                                             Foundation, Valley Forge,
                                             Pennsylvania
7/86......................................  Presented the Outstanding
                                             Private Sector Leader
                                             Award, by The American
                                             Legislative Exchange
                                             Council
9/87......................................  Presented the Professional
                                             Manager of the Year Award,
                                             by the Society for the
                                             Advancement of Management,
                                             Chicago Chapter, Chicago,
                                             Illinois
5/88......................................  Awarded Honorary Doctor of
                                             Letters Degree, by
                                             Claremont University Center
                                             and Graduate School,
                                             Claremont, California
4/8/90....................................  To be inducted into the
                                             Illinois Wrestling Coaches
                                             and Officials Hall of Fame
6/10/90...................................  Awarded Honorary Doctor of
                                             Laws Degree, DePaul
                                             University College of
                                             Commerce, Chicago, Illinois
11/22/91..................................  Awarded Certificate of
                                             Appreciation, Private
                                             Sector Council, Washington,
                                             DC
4/23/92...................................  Presented the Henry Townley
                                             Heald Award by Lewis
                                             Collens, President,
                                             Institute of Technology at
                                             Ceremony honoring 10-year
                                             members of the President's
                                             Council, Chicago, Illinois
5/2/92....................................  Induction as a Distinguished
                                             American by the National
                                             Wrestling Hall of Fame &
                                             Museum, Stillwater,
                                             Oklahoma
5/22/93...................................  Awarded Honorary Doctor of
                                             Laws Degree, Illinois
                                             Wesleyan University,
                                             Bloomington, Illinois
5/27/93...................................  Presented the Dwight David
                                             Eisenhower Medal,
                                             Eisenhower Exchange
                                             Fellowships, Inc.,
                                             Philadelphia, Pennsylvania
7/10/93...................................  Awarded Honorary Degree of
                                             Doctor of Public Policy,
                                             The RAND Graduate School,
                                             Santa Monica, California
6/19/97...................................  Presented the Atlantic Legal
                                             Foundation Award for Free
                                             Enterprise, New York, New
                                             York
5/10/98...................................  Presented the Doctor of Laws
                                             from Hampden-Sydney
                                             College, Hampden-Sydney,
                                             Virginia
10/7/98...................................  The Center for Security
                                             Policy 10th Anniversary
                                             ``Keeper of the Flame''
                                             Award, Four Seasons Hotel,
                                             Washington, DC
4/27/00...................................  Presented the Distinguished
                                             Community Service Award,
                                             Princeton Club of Chicago,
                                             Chicago, Illinois
9/21/00...................................  Named 42nd Ward Republican
                                             of the Year 2000, Chicago,
                                             Illinois
------------------------------------------------------------------------


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    This attachment represents my best recollections. It is complete to 
the best of my ability, but I suspect there may be some unintentional 
omissions.

                         DOCUMENTS WRITTEN BY DR
1/65......................................  ``Freedom of Information
                                             Law''
1966......................................  ``Summary of Congressman
                                             Rumsfeld's Efforts on the
                                             Freedom of Information
                                             Bill''
1967......................................  ``Account of Effort to Free
                                             Future Farmers of America
                                             (FFA) from Federal
                                             Control''
10/68.....................................  ``The Long Day''--written
                                             draft unpublished
1976......................................  ``Which Five Year
                                             Shipbuilding Program?''
                                             written for the Naval
                                             Institute Proceedings
1/6/77....................................  ``The All Volunteer Force:
                                             Myths & Realities''
                                            ``The Economics of Good
                                             Intentions: The Carter
                                             Guidelines'' for Wage and
                                             Price Guidelines/
                                             Commonsense
2/13/79...................................  ``Costly Education: History
                                             Gives a Lesson on Wage
                                             Price Controls,'' The San
                                             Diego Union
12/79.....................................  ``Is the Regulatory Process
                                             Working?'' Pharmaceutical
                                             Technology
6/27/80...................................  ``The U.S. in a Dangerous,
                                             Untidy World'' National
                                             Review
11/80.....................................  ``A Presidency for the
                                             1980s''
12/10/80..................................  ``The North Atlantic Treaty
                                             Organization (NATO)''
12/80.....................................  ``ORBIS: A Journal of World
                                             Affairs''
1980......................................  ``Rumsfeld's Rules''
1980......................................  ``America Must Respond,''
                                             Comparative Strategy
1983......................................  ``The Gauntlet-In Search of
                                             a Bipartisan Foreign
                                             Policy, The Challenge to a
                                             Genuine Debate''
1/14/83...................................  ``The Nuclear Balance in
                                             Europe: Status, Trends,
                                             Implications''
                                             (introduction by DR) for
                                             the United States Strategic
                                             Institute
2/83......................................  Defense Forum, Armed Forces
                                             Journal International
1984......................................  ``Beyond Containment? The
                                             Future of U.S.-Soviet
                                             Relations''
11/84.....................................  ``Five Business Views of
                                             Deficits & Taxes,''
                                             Commentary
3/13/85...................................  ``Rumsfeld Recollects''
                                             Wilson Award Winner,
                                             Princeton Alumni Weekly
10/18/85..................................  ``The Middle East & State
                                             Sponsored Terrorism'' The
                                             Commonwealth
Winter, 1985..............................  ``Analysis of Capitalism,''
                                             Keynote Address, Business
                                             Today
7/28/86...................................  Statement by The Honorable
                                             Donald Rumsfeld as read to
                                             Duncan Sellars of
                                             Conservative Caucus
2/21/87...................................  ``America's Competitive
                                             Position in the World, The
                                             Commonwealth
2/92......................................  Message from the Chairman
6/96......................................  ``Economic Freedom,
                                             Political Liberty, and
                                             Prosperity'' for Freedom
                                             House
6/96......................................  Statement for The Wall
                                             Street Journal on Missile
                                             Defense
7/30/96...................................  Reprint of Freedom House
                                             article, ``Economic
                                             Freedom. . .'' published by
                                             the Christian Science
                                             Monitor
9/05/96...................................  ``The Bob Dole Tax Plan Will
                                             Work'' Chicago Tribune--
                                             Voice of the People
3/05/97...................................  ``No to the Chemical Arms
                                             Treaty'' The Washington
                                             Post, written by James
                                             Schlesinger, Caspar
                                             Weinberger, and Donald
                                             Rumsfeld
Fall 1998.................................  The Ambassador's Review
1/65......................................  Freedom of Information Law
1966......................................  Freedom of Information,
                                             Summary
1967......................................  Account of Effort to Free
                                             Future Farmers of America
                                             (FFA) from Federal Control
10/68.....................................  The Long Day--written draft
                                             unpublished
1977......................................  Which Five Year Shipbuilding
                                             Program? Naval Institute
                                             Proceedings
1/6/77....................................  The All Volunteer Force:
                                             Myths & Realities
Date?.....................................  The Economics of Good
                                             Intentions: The Carter
                                             Guidelines
12/79.....................................  Is the Regulatory Process
                                             Working? Pharmaceutical
                                             Technology
6/27/80...................................  The U.S. in a Dangerous
                                             World, National Report
12/10/80..................................  The North Atlantic Treaty
                                             Organization
1980......................................  Rumsfeld's Rules
1980......................................  American Must Respond,
                                             Comparative Strategy
1983......................................  The Gauntlet
1/14/83...................................  The Nuclear Balance in
                                             Europe: Status, Trends,
                                             Implications (introduction
                                             by DR)
2/83......................................  Defense Forum, Armed Forces
                                             International Journal
5/19/85...................................  Book foreword for Wadi
                                             Haddad
7/28/86...................................  Statement by The Honorable
                                             Donald Rumsfeld read to
                                             Duncan Sellars of
                                             Conservative Caucus
12/86.....................................  Book foreword for John
                                             Andrews' Collected Essays
12/2/86...................................  The Arms to Iran and Money
                                             to the Contra's Issue
                                             (unpublished)
4/27/92...................................  Book forward for Tom Curtis
                                             Congressional Intent
 


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
       
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete
                                                 Donald H. Rumsfeld
    This 9th day of January, 2001.

    [The nomination of Donald H. Rumsfeld was reported to the 
Senate by Senator John Warner on January 20, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on January 20, 2001.]


   NOMINATION OF DR. PAUL D. WOLFOWITZ TO BE THE DEPUTY SECRETARY OF 
                                DEFENSE

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, Allard, 
Hutchinson, Sessions, Collins, Bunning, Levin, Cleland, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, and Carnahan.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Anita H. 
Rouse, deputy chief clerk; and Scott W. Stucky, general 
counsel.
    Professional staff members present: Charles S. Abell, John 
R. Barnes, Edward H. Edens IV, William C. Greenwalt, Gary M. 
Hall, George W. Lauffer, Patricia L. Lewis, Thomas L. 
MacKenzie, Cord A. Sterling, and Eric H. Thoemmes.
    Minority staff members present: David S. Lyles, minority 
staff director; Richard W. Fieldhouse, professional staff 
member; Gerald J. Leeling, professional staff member; Peter K. 
Levine, minority counsel; and Michael J. McCord, professional 
staff member.
    Staff assistants present: Jennifer Key, Thomas C. Moore, 
Jennifer L. Naccari, and Michele A. Traficante.
    Committee members' assistants present: George M. Bernier 
III, assistant to Senator Santorum; Robert Alan McCurry, 
assistant to Senator Roberts; Douglas Flanders, assistant to 
Senator Allard; Michael P. Ralsky, assistant to Senator 
Hutchinson; Arch Galloway II, assistant to Senator Sessions; 
Kristine Fauser, assistant to Senator Collins; Menda Sue Fife, 
assistant to Senator Kennedy; Christina Evans and Barry Gene 
(B.G.) Wright, assistants to Senator Byrd; Frederick M. Downey, 
assistant to Senator Lieberman; Andrew Vanlandingham, assistant 
to Senator Cleland; Davelyn Noelani Kalipi, assistant to 
Senator Akaka; Peter A. Contostavlos, assistant to Senator Bill 
Nelson; and Sheila Murphy, assistant to Senator E. Benjamin 
Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning. The committee meets today on 
a very important nomination by President George W. Bush for the 
Deputy Secretary of Defense, Dr. Paul Wolfowitz. I have had the 
privilege of knowing Dr. Wolfowitz for many years, worked with 
him in various capacities, and I commend the President for his 
nomination of this outstanding public servant.
    You are a man of accomplishments in many venues. You have 
many years of service in government and academia. You served in 
the Department of Defense on two previous occasions, as Deputy 
Assistant Secretary of Defense for Regional Programs from 1977 
to 1980 and as Under Secretary of Defense for Policy during the 
period 1989 through 1993. You were Under Secretary of Defense 
for Policy during the Persian Gulf War, a critical juncture in 
the history of our country. The tenth anniversary is now being 
observed by our Nation and the coalition partners who came 
together under the leadership of President George Bush to mount 
that most important offensive against the aggression of Saddam 
Hussein.
    You have served in various other government assignments, 
including Chief of the State Department Policy Planning Staff 
and as Ambassador to Indonesia under the Reagan administration. 
In addition, you have had a distinguished career in the 
academic world, having taught at Yale, Johns Hopkins, and the 
National War College. Most recently, you served as Dean and 
Professor of International Relations at the Paul H. Nitze 
School of Advanced International Studies at Johns Hopkins 
University.
    You have also appeared before this committee many times, 
providing valuable testimony, throughout your public career. 
Your insights and expertise have assisted this committee, and 
indeed Congress as a whole, in our deliberations and 
responsibilities, and we are confident, at least this Senator 
is, that you will continue to give that valued counsel and 
advice to this committee and Congress as a whole.
    If confirmed, you will be returning to the Department of 
Defense at a very challenging time in our history. In the 
judgment of many, and certainly this Senator, the threats 
growing against our interests as a Nation and those of our 
allies are more diverse, more complicated, than any time in 
contemporary history.
    I agree wholeheartedly with the directions which President 
George W. Bush and Secretary of Defense Don Rumsfeld are taking 
towards their new leadership roles in national security 
affairs, and most particularly the Department of Defense. It is 
a wise decision for the President and the Secretary of Defense 
to determine that they would undertake a top-to-bottom study 
long-term of the issues, beginning with the threat, the need to 
realign the military in many ways to meet these changing 
threats, and to take a long and counseled course for deciding 
which programs should continue and those that should be 
terminated.
    I continue--and I am perhaps a lone voice in some respects 
on this--to believe that we have short-term interests that have 
to be addressed, hopefully eventually in a supplemental 
appropriation late this summer or perhaps even earlier--before 
the Fourth of July is the target date I have. We will work 
along on that issue.
    Secretary Rumsfeld has asked this committee, during his 
confirmation hearing and in subsequent consultations, to move 
as quickly as we can on key nominations. I think that we are 
doing that in every respect. I commend my distinguished 
colleague, the ranking member, Mr. Levin, in working to see 
that this nomination has been handled properly and promptly, 
and we will continue to do that.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you. Let me welcome our 
nominee. I see Senator Sarbanes is here to introduce him and we 
are delighted that he is present this morning. I am pleased to 
join you in welcoming Paul Wolfowitz and his family to the 
Armed Services Committee for today's hearing.
    Mr. Wolfowitz is familiar with the work of this committee 
from the many times that he has testified before us and the 
House in his role as Dean of the Johns Hopkins University 
School of Advanced International Studies. He surely is familiar 
with the job to which he has been nominated from his previous 
service as Under Secretary of Defense for Policy.
    The Deputy Secretary of Defense serves in a position of 
awesome responsibility. He is the alter ego of the Secretary. 
In this capacity, the new Deputy Secretary will play a key role 
in determining how our country will meet the national security 
challenges that face us today. For example:

        <bullet> How do we need to transform our military 
        forces to meet a new set of threats over the coming 
        decades?
        <bullet> What new weapons systems and technologies do 
        we need to field? Do we need to skip a generation of 
        technology to do so?
        <bullet> Will the National Missile Defense make us more 
        or less secure?
        <bullet> Should we commit to deploy such a system?
        <bullet> If so, what system should we deploy and under 
        what circumstances?
        <bullet> To what extent should the United States remain 
        engaged around the world--for example in Kosovo, 
        Bosnia, Colombia, and even on the Korean peninsula?
        <bullet> What is the best approach to restrain Saddam 
        Hussein from developing weapons of mass destruction and 
        from threatening his neighbors in the Persian Gulf?

    Over the years, the best approach to foreign policy and 
national security policy has always been a bipartisan one. The 
administration is properly conducting a strategic review to 
determine the direction of our national security strategy and 
what direction our defense programs should take in the years 
ahead.
    I have supported President Bush's and Secretary Rumsfeld's 
decision to conduct this review before determining the level of 
resources that we should apply to our national defense. I look 
forward to working with them on these issues over the next 
several years.
    In addition, the Deputy Secretary has traditionally served 
as the chief manager of the Defense Department. A wide array of 
management challenges, including financial management, 
information security, and human capital issues, cut across 
functional areas in the Department to such an extent that no 
official other than the Secretary or the Deputy Secretary has 
the authority needed to address them.
    To take just one example, DOD's financial systems remain in 
need of modernization, with hundreds of partially-linked, 
error-prone computer systems spread throughout the Department. 
As a result, the Department remains unable to account for 
billions of dollars of property, equipment, inventory, and 
supplies, and unable to reconcile billions of dollars in 
differences between checks issued by the Department of Defense 
and reported to the Treasury.
    So if Mr. Wolfowitz is confirmed, and I expect that he will 
be, he will have a very full plate indeed. I look forward to 
working with you, as I know all members of this committee do.
    Chairman Warner. Thank you, Senator Levin.
    Senator Sarbanes, we are very fortunate, and indeed the 
nominee, to have you appear before this committee this morning. 
In my 23 years in the Senate I have come to know you very well 
and respect your knowledge on foreign affairs and national 
security matters. Indeed, we have traveled abroad together many 
times in this context of our security responsibilities. It is a 
privilege for this committee to welcome you this morning and to 
have you speak on behalf of this distinguished nominee.

 STATEMENT OF HON. PAUL S. SARBANES, U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. Thank you very much, Mr. Chairman, 
Senator Levin, members of the Armed Services Committee.
    I am pleased to have the opportunity to recommend this 
morning to you, very strongly recommend, a distinguished 
Maryland resident, Dr. Paul Wolfowitz, for the position of 
Deputy Secretary of Defense. Now, Mr. Chairman, I hope you will 
not hold it against him that he chose to live on the Maryland 
side of the Potomac and not the Virginia side.
    Chairman Warner. We observed that, but we will let it go 
by.
    Senator Sarbanes. We will let it pass. Thank you very much.
    Chairman Warner. He will be working in Virginia, though.
    Senator Sarbanes. I understand.
    Chairman Warner. If confirmed.
    Senator Sarbanes. Paul Wolfowitz has had a long and 
impressive career in both government and academia. Actually, 
his involvement in public service dates back to 1966, when he 
was a management intern in the Bureau of the Budget. From 1973 
to 1977 he held various positions at the Arms Control and 
Disarmament Agency. That posting was followed by his service as 
Deputy Assistant Secretary of Defense for Regional Programs 
from 1977 to 1980, then Director of the Policy Planning Staff 
at the State Department in 1981 and 1982, and Assistant 
Secretary of State for East Asian and Pacific Affairs from 1982 
to 1986.
    President Reagan then sent him from 1986 to 1989 as U.S. 
Ambassador to Indonesia, the fourth most populous country in 
the world. During his tenure there, his post was cited as one 
of the four best-managed embassies reviewed by the inspectors 
in 1988. His last government position was Under Secretary of 
Defense for Policy from 1989 to 1993, when Dick Cheney was the 
Secretary of Defense.
    This is a very wide-ranging and balanced government 
service, involving both the State Department and the Pentagon, 
and I think a very impressive blend of responsibilities.
    Shortly after leaving government service in 1993, Paul was 
appointed Dean of the Paul H. Nitze School of Advanced 
International Studies of the Johns Hopkins University here in 
Washington, commonly known as SAIS. SAIS is one of the 
preeminent institutions of higher learning devoted to the study 
of international relations. It is no wonder, of course, that he 
was appointed dean at this prestigious school because, in 
addition to important government service, he has outstanding 
academic qualifications: a B.A. in mathematics and chemistry 
from Cornell University in 1965, followed by an M.A. and a 
Ph.D. from the University of Chicago in political science and 
economics. He has taught at Yale, SAIS, and the National War 
College, where he was the George F. Kennan Professor of 
National Security Strategy.
    In my view, in the post-Cold War environment in which we 
operate, Paul's extensive background and experience should 
serve him well in this very significant and important post of 
Deputy Secretary of Defense. He has a solid grasp of complex 
defense and security issues, the diplomatic skills to operate 
in the international arena, the intellectual strength to look 
ahead to the challenges facing us in the 21st century, and the 
administrative skills to be the number two person in our 
largest government agency. No doubt his mathematics degree and 
his experience on budget matters will also come in handy at the 
Pentagon from time to time.
    Mr. Chairman, I would like to close with a quote from a 
statement released by the President of the Johns Hopkins 
University, William Brody, an outstanding educational leader, 
issued at the time of President Bush's announcement of his 
intention to nominate Paul to this position. President Brody 
said: ``The bad news is that Johns Hopkins is losing a great 
dean. The good news is that the country is getting a very 
smart, very focused, clear-thinking leader as Deputy Secretary 
of Defense. Paul Wolfowitz will serve the Nation well.''
    Mr. Chairman and members of the committee, I strongly 
concur with this assessment. I believe you have a highly 
qualified nominee before you who will serve our country well as 
Deputy Secretary of Defense, and I strongly urge his favorable 
consideration by the committee.
    Chairman Warner. Senator, we thank you. I think those of us 
who had the opportunity to know this distinguished nominee 
concur in your observations and that of the distinguished 
President of Johns Hopkins. Thank you, Senator.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Chairman Warner. At this point, I submit for the record the 
statement of Senator Barbara A. Mikulski, who could not be here 
in person due to other Senate responsibilities.
    I also submit for the record the statement of Senator Strom 
Thurmond.
    [The prepared statements of Senator Mikulski and Senator 
Thurmond follow:]
           Prepared Statement by Senator Barbara A. Mikulski
    Mr. Chairman: I appreciate the opportunity to express my support 
for the nomination of Dr. Paul Wolfowitz to be Deputy Secretary of 
Defense.
    Dr. Wolfowitz is well known to members of the Armed Services 
Committee. For over 30 years, he has committed his life to public 
service. As the Under Secretary of Defense for Policy, he was the 
principal civilian responsible for strategy, plans and policy. As the 
Assistant Secretary of State for East Asian Affairs, and as our 
Ambassador to Indonesia, Dr. Wolfowitz understands foreign policy as 
well as defense policy--and how the two are linked.
    Most recently, Dr. Wolfowitz served as dean of the Paul H. Nitze 
School of Advanced International Studies at the Johns Hopkins 
University. He repositioned the school from a Cold War orientation, 
which it had since its founding, to a focus on the impact and 
challenges of globalization in the post-Cold War era. He strengthened 
the faculty, increased the endowment, raised funds for student aid and 
enhanced the school's visibility among policymakers in Washington and 
around the world.
    At the Pentagon, Dr. Wolfowitz will face great challenges. We need 
to improve the quality of life for our men and women in uniform--so 
that we can continue to attract the best and the brightest to serve in 
our military. We also need to upgrade our weapons and technology. For 
example, the average Navy aircraft is 18 years old. We need to invest 
in new aircraft quickly--to give our pilots what they need to defend 
America.
    I am pleased that Dr. Wolfowitz will bring his keen intellect and 
wide ranging experience to the important position of Deputy Secretary 
of Defense. I look forward to working with him to ensure that our 
military remains strong in a world constantly challenged by ethnic 
conflict, civil and nationalist tensions, and the proliferation of 
weapons of mass destruction.
    Mr. Chairman, I'm sorry that other Senate responsibilities prevent 
me from being here in person, but I look forward to voting for Dr. 
Wolfowitz when his nomination is considered by the full Senate.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman:
    Mr. Chairman, I join you and the members of the Committee in 
welcoming Dr. Wolfowitz. I also want to take this opportunity to thank 
Deputy Secretary of Defense DeLeon for his service to our Nation while 
on the House Armed Services Committee and during the past 8 years in 
the many challenging positions he held in the Department of Defense. We 
may not always have been on the same side, but we always had the same 
goal of providing the best for our soldiers, sailors, airmen and 
Marines.
    Secretary Wolfowitz, congratulations on your nomination and on your 
superb record of public service. Your willingness to serve a third tour 
in the Department of Defense speaks highly of your dedication to our 
country and to the men and women who wear the uniforms of our military 
services. It is also noteworthy because holding public office requires 
many sacrifices and the rewards are few.
    Mr. Secretary, once confirmed, you will be part of the team that 
will face the challenge of transforming our armed forces, and for that 
matter the Department of Defense, to meet the challenges and threats of 
a new century. I want you to know that you can count on me, and, I 
believe the entire Armed Services Committee, to provide, on a 
bipartisan basis, the support that will be so critical toward achieving 
that goal. I wish you success and hope you will not hesitate to speak 
out forcefully on behalf of the men and women of our Armed Forces and 
the civilian employees of the Department of Defense.
    Thank you, Mr. Chairman.

    Chairman Warner. Dr. Wolfowitz, you now have the unlimited 
opportunity to express such views as you wish. Following that, 
we will have a 6-minute round of questions by our members.

  STATEMENT OF DR. PAUL D. WOLFOWITZ, NOMINATED TO BE DEPUTY 
                      SECRETARY OF DEFENSE

    Dr. Wolfowitz. Thank you, Mr. Chairman. I know that 
unlimited opportunities are best kept short and I will read 
just a part of my statement and submit the rest for the record.
    I want to thank Senator Sarbanes for being so gracious as 
to make time in a very busy schedule to come and introduce me.
    Chairman Warner, Senator Levin, members of the Armed 
Services Committee, it is a great honor to appear again before 
this committee, one that has done so much over the years to 
make our Nation strong and the world more peaceful. I am 
grateful to the President and to Secretary Rumsfeld for the 
confidence that they have shown in me by nominating me for a 
position of such great responsibility.
    If confirmed by the Senate, this will be my third tour in 
the Pentagon. It is also the second time that I come before 
this distinguished committee to seek confirmation for a senior 
position in the Department of Defense. On the previous occasion 
in 1989, it was a very different world. The Cold War was still 
a reality. Even in the heyday of Mr. Gorbachev, the principal 
threat to our Nation still came from a Soviet Union that was 
armed to the teeth with nuclear and conventional weapons. We 
had well over two million men and women on active duty to deter 
and, if necessary, to defend against this constant threat.
    Twelve years ago many observers believed that the United 
States was in a period of permanent decline and many pointed to 
other nations as models for reforming our economy. Budget 
deficits were taken as a given, the personal computer was a 
toddler, and the Internet was a mere infant.
    In the intervening years, the Cold War has become truly a 
part of history and we've fought and won a major war in the 
Persian Gulf. America did not decline, it prospered. We remain 
a vibrant world power with a position that is in many respects 
unique in the history of the world.
    Under these circumstances, it was only natural that our 
Nation desired to reap a peace dividend. We reduced our defense 
budget by 40 percent. We cut the force by nearly the same 
amount. Our defense budget was drawn down to the lowest 
percentage of our gross domestic product since the late 1930s.
    But the world remains, in Secretary Rumsfeld's phrase, a 
dangerous and untidy place. The need, indeed the demand, for 
U.S. leadership has increased as well. So, despite declining 
defense budgets and a shrinking force structure, in the past 
decade we drastically increased the number of military 
deployments for humanitarian and peacekeeping operations. This 
added greatly to the workload of an already busy force, one 
that was struggling to maintain its combat readiness, with 
dedicated but tired troops manning aging equipment.
    Today, as General Shelton has said, the force is frayed. We 
must begin a long overdue renovation and transformation of the 
armed forces, so that we can preserve and extend the peace well 
into the 21st century. President Bush has set this task as one 
of the highest priorities of his administration.
    The President has set three important goals for the 
Department of Defense. First, we must strengthen the bond of 
trust with the American military. As General Creighton Abrams 
said when the all-volunteer force was first created: ``People 
aren't in the Army; they are the Army.'' The same is true of 
all the military services. Building on the dedicated work of 
the Senate and the House, we must continue to improve military 
pay and quality of life.
    But good pay and fair allowances by themselves won't keep 
the best people in the service. Working with Congress and our 
allies, we must also re-examine the balance among force levels, 
commitments, and deployments. We will have to make sure that we 
are focused on the most important defense tasks and not placing 
unreasonable demands on our men and women in uniform.
    We will also have to acknowledge the relationship between 
morale and readiness. President Bush has said that even the 
highest morale is eventually undermined by back-to-back 
deployments, poor pay, shortage of spare parts and equipment, 
and declining readiness.
    Second, we must develop the capabilities to defend against 
missiles, terrorists, and the complex set of threats to our 
information systems and our all-important assets in space. U.S. 
military strength in the field is unparalleled. Many of our 
enemies therefore have determined that in order to move against 
us they must be able to strike us at home. Some have chosen to 
develop long-range missile systems. Others have chosen to 
support or direct terrorist attacks with conventional devices, 
weapons of mass destruction, or cyber weapons against our 
Nation, our forces, or our diplomats abroad. We must do 
everything in our power to stop them.
    Third, the Department of Defense must take advantage of the 
technological revolution to help us create a military for the 
21st century. To this end, at the direction of the President, 
Secretary Rumsfeld has already launched a review of our defense 
strategy and programs designed to provide a sound understanding 
of the state of our armed forces and their readiness for the 
21st century security environment.
    This work must be done quickly and it must be done before 
we can know what our true defense resource requirements are. 
President Bush and Secretary Rumsfeld believe, as the Secretary 
puts it, that we need to engage our brains before we open the 
taxpayers' wallets. I strongly support that approach and will 
work hard to shape a prompt and effective review.
    In addition to that review, to support and make progress on 
the President's goals, the Secretary has set five key 
objectives for the Department of Defense: First, to fashion and 
sustain a new form of deterrence appropriate to the new 
strategic environment, a deterrence based less on massive 
levels of punishment or retaliation and more on the use of both 
defensive and offensive means to deny our adversaries the 
opportunity and benefits that come from the use of weapons of 
mass destruction.
    Second, to assure the readiness and sustainability of our 
armed forces now and into the future. This will require not 
only spending to bring up current readiness levels, but also 
investment in the modernization efforts that our forces need to 
avoid being caught in a trap of making ever-increasing 
expenditures to maintain aging equipment.
    Third, to modernize our command and control and space 
capabilities to support our 21st century needs. That 
infrastructure is the foundation of American military strength.
    Fourth, to begin reshaping the U.S. defense establishment 
to meet new challenges and take advantage of new opportunities, 
we must begin to move, as President Bush has said, beyond 
marginal improvements to replace existing programs with new 
technologies and strategies. Building on the superb human 
capital of the current force, we must fashion a future force 
that is at once more agile, more lethal, and more rapidly 
deployable. It must be able to operate over increasingly longer 
ranges. It must integrate the capabilities of all of the 
services so that field commanders have the best possible 
combination of air, sea, and land weapons for each situation, 
and it must have the best technology that America can offer. 
Our dedicated soldiers, sailors, airmen, Marines, and Coast 
Guardsmen deserve no less.
    Finally, we must reform Department of Defense structures, 
processes, and organizations. We need to seek greater 
efficiencies, not only to safeguard the taxpayers' money, but 
also because that will allow us to create better weapon systems 
and invest more in the cutting edge of our Nation's defenses.
    There is no more solemn responsibility that the American 
people entrust to the Federal Government than to provide for 
the common defense. There is no group of Americans who deserve 
more respect and honor from their fellow citizens than the men 
and women of our armed forces who daily put themselves in 
harm's way for that constitutional purpose. It is both exciting 
and humbling to be asked once again to help lead them in their 
work for the common defense.
    Mr. Chairman, it is more than just an honor to be nominated 
by the President to be Deputy Secretary of Defense. It is also 
a great responsibility. I appreciate the trust that President 
Bush and Secretary Rumsfeld have placed in me. If confirmed, I 
look forward to continuing to work closely with this committee 
to achieve our common goals. Indeed, I pledge to you that, if 
confirmed, I will work with the services, Congress, and the 
defense industry to help the President and the Secretary 
prepare our armed forces to meet the challenges of the 21st 
century.
    Thank you. I look forward to your questions.
    [The prepared statement of Dr. Wolfowitz follows:]
                Prepared Statement by Dr. Paul Wolfowitz
    Senator Warner, Senator Levin, Members of the Armed Services 
Committee: It is an honor to appear again before this great committee, 
one that has done so much over the years to make our Nation strong and 
the world more peaceful. I am grateful to the President and Secretary 
Rumsfeld for the confidence that they have shown in me by nominating me 
for a position of such great responsibility. When I think of the men 
and women who have sought confirmation here in the past, and the number 
of important laws--like the Goldwater-Nichols Act--that have originated 
with this committee, I feel truly humbled.
    If confirmed by the Senate, this will be my third tour in the 
Pentagon. It is also the second time that I have come before this 
distinguished committee to seek confirmation for a senior position in 
the Department of Defense.
    On the previous occasion, in 1989, it was a very different world. 
The Cold War was still a reality. Even in the heyday of Mr. Gorbachev, 
the principal threat to our Nation still came from a Soviet Union that 
was armed to the teeth with nuclear and conventional weapons.
    We had well over 2 million men and women on Active Duty to deter 
and, if necessary, defend against this constant threat.
    Twelve years ago, many observers believed that the United States 
was in a period of permanent decline, and many pointed to other nations 
as models for reforming the U.S. economy. Budget deficits were taken as 
a given, the personal computer was a toddler, and the Internet was a 
mere infant.
    In the intervening years, the Cold War has become part of history, 
and we have fought and won a major war in the Persian Gulf. America did 
not decline, it prospered. We remain a vibrant world power, with a 
position that is in many respects unique in the history of the world.
    Under these circumstances, it was only natural that our Nation 
desired to reap a peace dividend. We reduced our defense budget by 40 
percent, and cut the force by nearly the same amount. Our defense 
budget was drawn down to the lowest percentage of our gross domestic 
product since the late 1930s.
    But the world remained, in Secretary Rumsfeld's phrase, a 
``dangerous and untidy'' place. Amidst the peace that encompassed the 
developed world, ethnic conflict, regional thugs, failed states, 
terrorists, and the proliferation of missiles and weapons of mass 
destruction presented new challenges. The need, indeed the demand, for 
U.S. leadership increased, as well.
    Despite declining defense budgets and a shrinking force structure, 
in the past decade we drastically increased the number of military 
deployments for humanitarian and peacekeeping operations. This added 
greatly to the workload of an already busy force, one that was 
struggling to maintain its combat readiness with dedicated, but tired 
troops manning aging equipment. Today, as General Shelton has said, the 
force is ``frayed.''
    We must begin a long overdue renovation and transformation of the 
Armed Forces in order to preserve and extend the peace well into the 
21st century. President Bush has set this task as one of the highest 
priorities of his administration. As the President has reminded us, 
peace is not ordained, it is earned; and it must be earned, in 
particular, by the hard and often dangerous work of our men and women 
in uniform.
    The President has set three important goals for the Defense 
Department:

          First, we must strengthen the bond of trust with the American 
        military.
        As General Creighton Abrams said when the All-Volunteer Force 
        was first created, ``people aren't in the Army, people are the 
        Army''--and the same is true of all the military services.
          Building on the dedicated work of the House and the Senate, 
        we must continue to improve military pay and quality of life. 
        But good pay and fair allowances by themselves won't keep the 
        best people in the service. Working with Congress and with our 
        allies, we must also reexamine the balance among force levels, 
        commitments, and deployments. We will have to make sure that we 
        are focused on the most important defense tasks, and not 
        placing unreasonable demands on our men and women in uniform.
          We will also have to acknowledge the relationship between 
        morale and readiness. President Bush has said that ``even the 
        highest morale is eventually undermined by back-to-back 
        deployments, poor pay, shortage of spare parts and equipment, 
        and rapidly declining readiness.'' Our men and women in uniform 
        must have first-class equipment, adequate materiel for training 
        and maintenance, decent barracks, modern family quarters, and 
        suitable working conditions.
          Second, we must develop the capabilities to defend against 
        missiles, terrorists and the complex set of threats to our 
        information systems and our all-important assets in space. U.S. 
        power in the field is unparalleled. Many of our enemies have 
        determined that in order to move against us, they must be able 
        to strike us at home. Some have chosen to develop long-range 
        missile systems. Others have chosen to support or direct 
        terrorist attacks--with conventional devices, weapons of mass 
        destruction, or cyber weapons--against our Nation, our forces, 
        or our diplomats abroad. We must do everything in our power to 
        stop them.
          Third, the Department of Defense must take advantage of the 
        technological revolution to help us create a military for the 
        21st century. To this end, at the direction of the President, 
        Secretary Rumsfeld has already launched a review of our defense 
        strategy and programs designed to provide a sound understanding 
        of the state of our Armed Forces and their readiness for the 
        21st century security environment. This work must be done 
        quickly, and it must be done before we can know what our true 
        defense resource requirements are. President Bush and Secretary 
        Rumsfeld believe, as the Secretary puts it, that we need to 
        ``engage our brains before we open the taxpayer's wallet.'' I 
        strongly support that approach and will work hard to shape a 
        prompt and effective review.

    In addition to that review, to support and make progress on the 
President's goals, the Secretary has set five key objectives for the 
Department of Defense:

          First, we must fashion and sustain a new form of deterrence 
        appropriate to the new strategic environment. The proliferation 
        of missiles and weapons of mass destruction is a key element in 
        the new strategic environment. We need new concepts and forms 
        of deterrence to deal with it. We need a deterrence based less 
        on massive levels of punishment or retaliation, and more on the 
        use of both defensive and offensive means to deny our 
        adversaries the opportunity and benefits that come from the use 
        of weapons of mass destruction.
          Second, we must assure the readiness and sustainability of 
        our Armed Forces, now and into the future. This will require 
        not only spending to bring up current readiness levels, but 
        also investment in the re-capitalization and modernization 
        efforts that our forces need to avoid being caught in the trap 
        of making ever-increasing expenditures to maintain aging 
        equipment.
          Third, we must modernize our command and control, and space 
        capabilities to support our 21st century needs. Our command, 
        control, communications, and intelligence infrastructure is the 
        foundation of American military strength. That infrastructure 
        is essential for current operations and indispensable for 
        adapting today's force to take advantage of new technology to 
        meet 21st century challenges. As Secretary Rumsfeld has said, 
        we must significantly improve our intelligence and space 
        capabilities, as well as our ability to protect them against 
        various forms of attack.
          Fourth, we must begin reshaping the U.S. defense 
        establishment to meet new challenges and take advantage of new 
        opportunities. We face the demanding task of preparing for an 
        uncertain future where there are many individual, unpredictable 
        threats but no single major adversary to focus our efforts. We 
        will have to make a stronger effort to define the key tasks and 
        begin to move, as President Bush has said, ``beyond marginal 
        improvements to replace existing programs with new technologies 
        and strategies.''
          Building on the superb human capital of the current force, we 
        must fashion a future force that is at once more agile, more 
        lethal, and more rapidly deployable. It must be able to operate 
        over increasingly longer ranges. It must integrate the 
        capabilities of all of the services so that field commanders 
        have the best possible combination of air, sea, and land 
        weapons for each situation; and it must have the best 
        technology that America can offer. Our dedicated soldiers, 
        sailors, airmen, marines and coast guardsmen deserve no less.
          Finally, we must reform Department of Defense structures, 
        processes, and organizations. We need to seek greater 
        efficiencies not only to safeguard the taxpayer's money, but 
        also because that will allow us to create better weapons 
        systems and invest more in the cutting edge of our Nation's 
        defenses.

    There is no more solemn responsibility that the American people 
entrust to the Federal Government than--in the words of the 
Constitution--``to provide for the common defense.'' There is no group 
of Americans who deserve more respect and honor from their fellow 
citizens than the men and women of our Armed Forces, who daily put 
themselves in harm's way for that constitutional purpose. It is both 
exciting and humbling to be asked again to help lead them in their work 
for the common defense.
    Mr. Chairman, it is more than just an honor to be nominated by the 
President to be Deputy Secretary of Defense, it is also a great 
responsibility. I appreciate the trust that President Bush and 
Secretary Rumsfeld have placed in me. If confirmed, I look forward to 
continuing to work closely with this committee to achieve our common 
goals. Indeed, I pledge to you that I will work with the Services, 
Congress, and the defense industry to help the President and the 
Secretary prepare our Armed Forces to meet the challenges of the 21st 
century.
    Thank you. I look forward to your questions.

    Chairman Warner. Thank you, Dr. Wolfowitz.
    By the long-standing tradition of this committee, the Chair 
now propounds to you questions that are given to each nominee. 
First, have you adhered to applicable laws and regulations 
governing conflict of interest?
    Dr. Wolfowitz. Yes, I have, Senator.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Wolfowitz. No, I have not, Mr. Chairman.
    Chairman Warner. Will you ensure that you and your staff 
comply with the deadlines established for requested 
communications, including questions for the record, by this 
committee and other committees of Congress?
    Dr. Wolfowitz. Yes, Mr. Chairman. I consider that a high 
priority. I also will work with Secretary Rumsfeld, as he 
indicated in his testimony, to try and see if we can streamline 
some of those requirements, because they are quite substantial, 
I have observed already.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Wolfowitz. I certainly will, Mr. Chairman.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony or briefings?
    Dr. Wolfowitz. Yes, they will.
    Chairman Warner. The Chair notes that you have responded to 
the questions propounded by this committee and that they will 
be made a part of the record today.
    Now we will proceed on a round of 6 minutes to each member. 
Dr. Wolfowitz, you were in the Department of Defense during the 
Gulf War, and I copied a note from your opening statement in 
which you said, ``We fought and won the war in the Persian 
Gulf.'' Unquestionably, the coalition of military forces did 
fight bravely and win that war. It is interesting, it was a war 
of about 100 hours.
    The decision was made not to pursue Saddam Hussein's forces 
back into Iraq and I have always defended that decision that 
was made by our then-President George Bush. But the aftermath 
is not necessarily one of victory. We have seen 10 consecutive 
years now in which, although early on there was some compliance 
with the UN Security Council resolutions by Iraq, there has 
been absolute defiance of the Security Council resolutions and 
the understandings that were agreed to by Saddam Hussein.
    This morning I looked at the headlines and it said the U.S. 
is prepared to revise the sanctions regime and the caption was 
that we would lessen the sanctions. My question to you is, what 
do we get in return from Saddam Hussein and what is the 
likelihood that he will now comply with the clear obligations 
he undertook at the end of the conflict and the clear mandates 
of the Security Council?
    Dr. Wolfowitz. Mr. Chairman, in compliance with the 
strictures on me as a not yet confirmed nominee, I have not 
been intimately involved in the policy process on Iraq. I saw 
the same article you saw in the paper this morning. I have not 
yet seen a complete transcript of what Secretary Powell said.
    Chairman Warner. I recognize that you have not been 
involved in that. I understand that. But you have devoted much 
of your career to these types of issues and questions. What 
counsel and advice would you share with the President and the 
Secretary of Defense?
    Dr. Wolfowitz. I believe that what one has to do in 
approaching this issue, and it is a very difficult issue and 
you are absolutely correct in saying that we may have won the 
war, but we still have a major problem there as long as Saddam 
Hussein is in power--one needs not just a single policy 
decision, for example one concerning sanctions, one needs an 
overall strategy.
    That strategy has to reflect the reality of where you are 
today and where you hope to be a year from now or 2 years from 
now. I do believe that part of the reality is that where we are 
today is that we have lost a lot of ground since the end of the 
Gulf War and he has gained a lot of ground. In particular, the 
coalition that the first President Bush assembled to confront 
Iraq is not anything like what it used to be.
    Part of that problem is that Saddam has succeeded to a 
disturbing degree in cultivating the notion that the sanctions 
are not punishing him, they are only punishing the Iraqi 
people. I believe that part of what we need to do is make clear 
that the sanctions that are in place are not intended and 
should not prevent humanitarian assistance or food or medical 
supplies from getting to the Iraqi people.
    But I would also emphasize sanctions are not a policy; they 
are at best a part of a policy. I think the overall policy has 
to focus on how one can prevent him from getting weapons of 
mass destruction or get rid of them if he has them, how to keep 
him from becoming a threat to his neighbors by conventional or 
unconventional means, and hopefully, if possible, to devise a 
strategy to assist the Iraqi people in freeing themselves from 
this tyrant. That is not going to be something that is going to 
happen overnight.
    Chairman Warner. I have just returned from a trip to that 
region. Senator Stevens, Chairman of the Appropriations 
Committee, and I and several other Senators, visited in Egypt 
with President Mubarak. We visited in Israel with Prime 
Minister-designate Sharon. It seems that there is a feeling 
that we can reconstitute under U.S. leadership in some measure 
the coalition of nations that fought that battle 10 years ago. 
Speaking for myself, I think that is probably the key to such 
new policies as we have towards Iraq.
    Regrettably, the United States and Great Britain have been 
going it alone certainly in the containment of Saddam Hussein 
through the very courageous air operations in the north and the 
south. In the Gulf itself we have been joined by several other 
nations in the naval activities to curtail the smuggling and 
other trafficking to and from Iraq in the Gulf waterways. But 
largely it has been the United States and Great Britain alone.
    My question to you is what is the likelihood that we can 
reconstitute in some measure that some 20-plus nations, is my 
recollection, that participated in that Gulf action?
    Dr. Wolfowitz. I think it is going to depend on what we 
want them for, and in fact we may not need all of them, 
depending on what we want to do. But I do think the key to 
putting the coalition together the first time and the key to 
reassembling another coalition if we need it is to convince 
people that there is a long-term outcome that benefits them.
    I think one of the problems we face today is they see many 
short-term costs. Every time there is a military strike, Arab 
governments suffer criticism from their own people. That is 
just one of many short-term costs. They do not see the long-
term gain or benefit. It is crucial, I think, as the American 
piece of putting this coalition together to convince people 
that there is an outcome that is worth enduring those obvious 
costs.
    Chairman Warner. During the course of the early comments by 
President George W. Bush and based on his campaign commitments 
to the American people was the commitment to say that we would 
not engage the U.S. forces in the many and diverse actions that 
were undertaken by President Clinton. We now recognize that the 
Department of Defense was underfunded and the troops 
overextended in that period and corrections have to be made.
    In your work with Secretary Rumsfeld and indeed with the 
extraordinary competent security team the President has put 
together, what is the general framework? What are the general 
guidelines that should be laid down, in your judgment, to guide 
future military commitments by the United States and to guide 
those situations in which we will simply say, no, we will not 
participate?
    Dr. Wolfowitz. I think clearly one of the most important 
criteria is that it has to be something that is important to 
our national interests. It also has to be something where 
military forces can achieve the objectives of our national 
interest, and I think it has to be something where we have a 
strategy for success, that we have a way of achieving our goals 
and completing the mission and not end up in something that is 
an unending commitment with no way out.
    It is also true, Mr. Chairman, that I believe we need to be 
more careful about how we engage our forces. But one also has 
to be very careful about how you disengage. One cannot rewrite 
history and it is very important as we try to reduce the 
requirements and burdens that we have imposed by many 
commitments all around the world that we not recreate the very 
situations that we went in to prevent.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Dr. Wolfowitz, applying those criteria, where are we 
currently deployed where we should not be?
    Dr. Wolfowitz. It is not so much that we are deployed 
somewhere that we should not be, but I think everywhere that we 
are deployed we should look at the question of whether we need 
as much as we have. We should look at the question of whether 
we are heading down a road where we may tragically pull out 
precipitously.
    I think one of the very important things we want to avoid 
is the precedent--and it has been a bipartisan failure--in 
Beirut where we lost Marines and then suddenly pulled out, and 
Somalia where we lost Rangers and suddenly pulled out. It is 
very dangerous to have a commitment where we are undertaking 
dangers that we have not fully appreciated and that the 
American people are not prepared to support.
    As a general principle, I think we need to look as much as 
possible at turning responsibilities over to other people. 
Sometimes that means turning responsibilities over to our 
allies, sometimes--and I would hope this might be true in some 
places like East Timor and the Balkans--turning more 
responsibility over to the indigenous people themselves. 
Sometimes, where it is a matter where our highly trained combat 
people are performing what is essentially a police function, I 
would hope we could find policemen, hopefully not Americans, 
who can perform those functions.
    So it is less a matter that there is a specific place that 
we should pull out of, but rather everywhere that we have this 
very precious resource engaged we should try to make sure that 
there are not better alternatives.
    Senator Levin. I think we always should do that on an on-
going and continuing basis. But you are not prepared to tell us 
where, applying those criteria and asking those questions, we 
should now plan on withdrawing forces?
    Dr. Wolfowitz. No, I am not. I think that is part of what 
this defense review that the Secretary is undertaking has to 
look at, although it is not entirely a Defense Department 
responsibility.
    Senator Levin. On the Iraq questions that the Chairman 
asked, you have previously said that the no-fly zones do not 
matter. You have been highly critical of that policy. You have 
also advocated what you have called a serious policy aimed at 
liberating the Iraqi people by creating a liberated zone in 
southern Iraq that could be used as a base by the Iraqi 
opposition. You have stated that it will take American forces, 
to use your words, to create a protected area in which the 
opposition forces can organize.
    Now, General Zinni, who is our most recent CINC in that 
area of the world, has taken a very different approach, saying 
that that approach which you have proposed is a dangerous 
illusion that was likely to lead to what he called a ``Bay of 
Goats''--like a Bay of Pigs kind of an operation.
    Do you still advocate the commitment of U.S. forces to 
support opposition elements within Iraq in an effort to 
overthrow Saddam?
    Dr. Wolfowitz. Senator, it would depend on what those 
opposition forces are actually capable of doing. Every 
statement one makes, thoughtful statement about Iraq policy, as 
I said to the Chairman before, has to look at the context. In 
1991, a month after the end of the Gulf War, we actually did 
put ground forces back into northern Iraq to create a protected 
zone under which Kurdish opposition forces could operate, and 
to this day, although there was a significant failure in 1996, 
northern Iraq is a largely liberated area.
    I think some of the statements you are referring to go back 
to a time a few years ago when Sandy Berger, President 
Clinton's National Security Adviser, was saying that the 
problem of Saddam's weapons of mass destruction was something 
worth fighting for, and my reaction was, if it is worth 
fighting for, then it is worth fighting with whatever 
capabilities we need and not simply limiting ourselves to air 
power.
    Senator Levin. Is it worth fighting for?
    Dr. Wolfowitz. It depends on what we are being asked to do. 
When we were asked in 1991 to get the Kurdish refugees back 
into northern Iraq, it was a plausible plan that made sense. I 
have not yet seen a plausible plan today, but I would be very 
interested in seeing one.
    Senator Levin. Is that goal worth seeking?
    Dr. Wolfowitz. I think there is no question that the whole 
region would be a safer place, Iraq would be a much more 
successful country, and American national interests would 
benefit greatly if there were a change of regime in Iraq.
    Senator Levin. That being the case, why then do you 
apparently now back away from your previous statement that it 
is worth achieving a base from which the Iraqi opposition can 
attack Saddam?
    Dr. Wolfowitz. Senator, because I believe it depends on the 
context. It depends on what your real options are. If there is 
a real option to do that, I would certainly think it is still 
worthwhile.
    Senator Levin. But you are not then saying that as of today 
there is a real option?
    Dr. Wolfowitz. I have not seen it yet.
    Senator Levin. On North Korea, do you have evidence that 
North Korea has cheated on the Framework Agreement?
    Dr. Wolfowitz. No, I do not, Senator. But during the months 
I spent with now Secretary Rumsfeld on the Ballistic Missile 
Threat Commission that he chaired, we kept hearing statements 
that there is no evidence of this and no evidence of that, and 
the commission as a whole began to come up with the saying, 
which I think George Tenet adopted, that absence of evidence is 
not evidence of absence.
    In the case of a country like North Korea, where it is so 
hard to know what is going on, it is very hard to get hard 
evidence. There are bits of information that suggest it might 
be possible, but there is certainly no proof.
    Senator Levin. Do you advocate abrogating the Framework 
Agreement at this time?
    Dr. Wolfowitz. Not if the North Koreans comply with it, no.
    Senator Levin. Based on what you know, do you favor 
abrogating it at this time?
    Dr. Wolfowitz. No.
    Senator Levin. Thank you.
    My time is up. Thank you very much.
    Chairman Warner. Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    Dr. Wolfowitz, I do not think I have ever seen someone come 
in for confirmation with a more glittering array of credentials 
than you have. I think we are very fortunate to be having you 
at this confirmation hearing. Your credentials, as I think 
outlined by the Chairman and others, are both in the world of 
academia as well as in the Pentagon.
    What do you in your mind feel particularly qualifies you 
for this job with your background?
    Dr. Wolfowitz. I appreciate the question, Senator, because 
you have been polite, but I think one of the questions is: You 
are taking on--I am asking to be confirmed for a job that is 
essentially the chief operating officer of the Pentagon and it 
is quite a management challenge. I have had quite a bit of 
management experience. I would say for the last, ever since I 
was Assistant Secretary of State for East Asian Affairs, so 
that makes it the last 18 years, I have been managing 
organizations of 100 or multiple hundreds of people, and I 
think I would say reasonably successfully.
    I think there are two things that I bring to it as a 
manager. One is I believe in managing for results, whether the 
result was a focused American policy that helped to remove 
Ferdinand Marcos in the Philippines or the result when I was 
Under Secretary of Defense for Policy implementing, designing 
and implementing a strategy that helped to keep Israel out of 
the Gulf War, or designing and implementing a strategy that 
raised $50 billion, more than $50 billion, from our allies and 
friends to support the war effort, or, on a more modest scale, 
but I hope I had a real impact, as Dean of the Johns Hopkins 
School of Advanced International Studies, managing an 
enterprise of, if you count our students, over a thousand 
people, tens of millions of dollars, which is just a rounding 
error at the Pentagon, but it's real money, and a very 
successful capital campaign that raised four times our original 
goal.
    So I believe results is the way you measure management, not 
how many jobs you've held, and I believe people are the way you 
get results. That is the other thing I hope I bring to the job.
    There is something I think that some private sector 
managers do not quite appreciate about managing in government. 
It is even more so in the academic world. Your flexibility to 
reward people or to penalize people tangibly is limited. You 
have to motivate them in other ways. I think I have had the 
experience of motivating very good people to work ungodly hours 
for the national interest, and I hope I can continue to do 
that.
    Senator Inhofe. I am sure you can.
    The Chairman talked about how it might become necessary to 
reconstitute the 20-plus nation alliance that we once had 
should it become necessary in the Middle East. My concern is, 
while I am concerned for that, I am also concerned equally 
about reconstituting our state of readiness. The CINCs have 
identified some 87 readiness-related deficiencies, of which 31 
of these are listed as category one, and that is our ability to 
fight a war.
    Are you prepared to try to address these? We brought these 
up before and nothing has happened in the last few years. How 
do you look at these identified deficiencies?
    Dr. Wolfowitz. I think that is one of the most important 
issues that this defense review that Secretary Rumsfeld is 
undertaking has to address. It is really central to the first 
of the President's priorities, because readiness is both a 
matter of our ability to fight wars, but it is also a measure 
of our ability to keep competent, capable people in the 
military services. So it is a top priority.
    Senator Inhofe. Also, some of the readiness issues that are 
there today, where there are some $4.5 billion of near-term 
readiness requirements, some of these I have been out in the 
field and I have seen. I use the example of out at Fort Bragg 
during a rain storm just that there is no roof on the barracks 
and they are covering up their equipment with their bodies. 
Real Property Maintenance (RPM) accounts that are supposed to 
be done immediately, they are robbing one account for the other 
to get ammunition.
    What is your feeling about a supplemental covering some of 
these things that really have to be done?
    Dr. Wolfowitz. As the Secretary said, we really have to do 
this review and do it quickly and see what our total 
requirements are and see if everything we are doing we need to 
do. But clearly we cannot have a force that is suffering from 
the kinds of problems that you have identified and we have to 
cover those things.
    Senator Inhofe. They are immediate.
    In your statement, I appreciate the fact that you talked 
about the problems that are out there threatening us, not just 
being missiles but other types, the suitcase type. When you sit 
on the floor of the Senate, those who are opposed to a National 
Missile Defense system are saying the real threat is that in a 
truck or a suitcase. Certainly, being from Oklahoma and the 
Murrah Federal Office Building, which you are very familiar 
with, I guess the most significant domestic terrorist attack in 
the history of America, I am very sensitive to that. Yet, just 
one nuclear warhead has a thousand times that explosive power. 
So I hope that you would look at both of these tracks at the 
same time as the real threat that is out there.
    You performed very well in the Rumsfeld Commission 
concerning the necessity for a National Missile Defense system 
and I applaud you for that, and I look forward to working with 
you in this committee to achieve that goal.
    Thank you.
    Dr. Wolfowitz. Thank you.
    Chairman Warner. Thank you very much.
    Senator Cleland.

                STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman.
    Dr. Wolfowitz, welcome and we appreciate your commitment to 
public service. You talked earlier in your testimony today 
about the over-commitment of American men and women and the 
stress on families from our commitments, the need to review 
those commitments, which I certainly share. Senator Pat Roberts 
and I took the Senate floor a number of times last year to talk 
about the sense in which we were over-committed and under-
funded as a Nation.
    Then, in terms of Iraq, I hear that the air campaign may 
not be enough, that certain things are worth fighting for. I 
just want to get it straight. Are you prepared to support an 
American ground invasion of Iraq to overthrow Saddam Hussein?
    Dr. Wolfowitz. No one has proposed that, Senator, and I do 
not believe that even the statement Senator Levin referred to 
has to do with how we might support efforts by the Iraqi people 
to overthrow their own government.
    Senator Cleland. I just wanted to say that that would be a 
dramatic increase in American commitment abroad and American 
forces are now stretched pretty thin. I just wanted to make 
that clear, since you have talked about over-commitment and 
then in effect indicated the air campaign may not be enough and 
that certain things were worth fighting for. I just wanted to 
clarify your position on that. You do not now support an 
American ground invasion with American forces to overthrow 
Saddam Hussein?
    Dr. Wolfowitz. I have never supported an American invasion 
to overthrow Saddam.
    Senator Cleland. Thank you very much.
    Dr. Wolfowitz. But Senator, I think it is also fair to say, 
to point out that the prolonged commitment to that region of 
our forces that Chairman Warner referred to earlier is in part 
because that war ended inconclusively. We can debate endlessly 
whether we should have fought longer, fought differently. But 
the fact is one of the things that produces protracted 
commitments is inconclusive conclusions.
    Senator Cleland. As a Vietnam veteran myself, I am familiar 
with inconclusive conclusions and situations that turn out 
badly if you do not pursue them in the right way. Enough said.
    May I just say that part of my concern about the 
overcommitment of American forces is the inability to get them 
there quickly. If we are to actually make sure that we are not 
overcommitted, but are able to respond to hot spots in the 
world, that means that we have to have global airlift strength. 
The Hart-Rudman Commission recently reviewed American airlift 
capability and found it basically inadequate.
    I would just like to call that to your attention, because 
great aircraft like the new C-130J, the C-5B, and its possible 
modernization, are all part of a global airlift strategy that I 
think fits into our strategic needs very well, and I would just 
call that to your attention, the deficit in the airlift 
capability.
    There is another deficit I would like to bring to your 
attention. The key to our defense is our defenders and I think 
we would all agree with that. Almost all new service members 
enroll and contribute to the GI Bill, the Montgomery GI Bill, 
yet only about half of these service men and women actually use 
these benefits. Many who use the benefits do not use all of 
their entitlement. The great historian Steven Ambrose has said 
that the creation of the GI Bill was the single most important 
law ever passed by the Federal Government. Yet many of these 
soldiers and sailors and airmen and Marines are getting out of 
the service. Many would like to stay in the service, they tell 
me as I get around to bases, not only here in this country but 
around the world, but they feel they have to leave so that they 
can provide, especially for the education of their spouses and 
children.
    I believe many of these service members would stay in the 
military if they could transfer part of their unused 
entitlement to the GI Bill to family members in return for a 
service commitment. That is a win-win situation, it seems to 
me. It is an idea actually supported by the Hart-Rudman 
Commission report. Service secretaries could use this retention 
tool selectively, just as they use reenlistment bonuses 
selectively.
    I would deeply appreciate it if you would give serious 
consideration to how the Department of Defense can use the 
transfer of GI Bill benefits to family members, in other words 
making the GI Bill more family-friendly, as the military itself 
has become a more family institution, use it as a retention 
tool, and continue to give us your best thoughts on how we 
might pursue this idea.
    Is that something that might be of interest to you?
    Dr. Wolfowitz. It sounds very interesting and it certainly 
addresses probably our highest priority, which is how to keep 
good people, attract good people, and keep them in the service. 
I know there is nothing that a parent cares more about than the 
education of their children. I know that as a father.
    Senator Cleland. You put your finger right on it. The old 
saying is you recruit a soldier, but you retain a family. I was 
just in Osaka, Japan, and a Navy admiral mentioned to me that 
the decision to stay in the Navy is made at the dinner table. 
So these retention decisions of our aviators, of our top 
quality people, of our high tech people, of our senior captains 
and senior NCOs seem to be made around the dinner table. This 
question of the ability to care for the education of our 
spouses, the education of our kids, is something that is of 
growing importance.
    We thank you very much for your testimony today.
    Mr. Chairman, no further questions. Thank you, Mr. 
Chairman.
    Chairman Warner. Thank you, Senator. I wish to associate 
myself with your observations about that GI Bill. You know that 
I will work with you again to achieve those goals. Just 
yesterday in Virginia I had a constituent raise that very issue 
of transferability.
    Senator Levin. Mr. Chairman, I wonder if you would yield 
for 10 seconds so I could join in the Chairman's support of 
Senator Cleland's comment on the GI Bill transferability issue. 
This committee has been very supportive of that effort. So, if 
you are confirmed, maybe you can help us persuade some of our 
House colleagues on it.
    Dr. Wolfowitz. It will be high on my list to look at, 
Senator.
    Chairman Warner. Senator Hutchinson.

              STATEMENT OF SENATOR TIM HUTCHINSON

    Senator Hutchinson. Thank you, Mr. Chairman.
    Dr. Wolfowitz, I join my colleagues in welcoming you and in 
expressing our belief that our Nation is very fortunate to have 
you. I also want to pick up on what Senator Cleland was saying. 
I chair the Personnel Subcommittee. Senator Cleland is our 
ranking member. We have worked closely on this whole issue of 
retaining our men and women in uniform. While at one time most 
of our service men and women were single, that is not the case 
any more. Most of them have families, and the issue of not just 
their education, but the education of dependents, is foremost 
in their minds.
    I have supported, and still support very strongly, Senator 
Cleland's efforts at portability on the Montgomery GI Bill. But 
I also believe that there may be other areas, other methods by 
which service men and women can ensure that their children are 
going to receive an education. I just ask for your commitment 
to work with our committee in exploring ways in which we can 
ensure that that opportunity is there for all of the dependents 
of our men and women in uniform.
    Dr. Wolfowitz. I will do so with enthusiasm.
    Senator Hutchinson. Thank you. I think when you speak of 
strengthening the bond of trust, that is a big part of the 
quality of life that we are all concerned about.
    Also, I want to raise an issue concerning the acquisition 
policy of the Department of Defense on vaccine production. In 
the early 1990s the Department made the mistake, I believe, of 
abandoning its plans to construct a GOCO vaccine production 
facility. The consequences of that erroneous decision are only 
now being made fully evident and fully demonstrated.
    Last summer, partly as a result of prodding from this 
committee and our subcommittee's hearings, the gentleman that 
you will replace if confirmed, wisely, I think, decided to 
throw in the towel on that existing vaccine acquisition 
strategy and signaled that the Department would return to the 
pre-1994 strategy, namely the construction of a GOCO.
    Now, during this time of transition there are grumblings 
that there are those who now want to abandon that or head in 
another direction, which concerns me. I have written Secretary 
Rumsfeld and have asked him personally to investigate that 
matter. If confirmed, will you assure me that you will 
personally look into this vaccine acquisition strategy to 
ensure that it is an open and fair process?
    Dr. Wolfowitz. Yes, I will.
    Senator Hutchinson. I also want to raise something I have 
been very concerned about, as well as Senator Reed and Senator 
Cleland, and that is the C-130 acquisition and beddown schedule 
for the future. The Little Rock Air Force Base, in my home 
State of Arkansas, is the schoolhouse for the training for the 
C-130s, and the Little Rock Air Force Base is scheduled to 
receive the C-130J flight simulator, it should be up and 
running by 2004.
    But Little Rock is not scheduled to receive the first C-
130J aircraft until 2006. That means there will be a 2-year gap 
between the availability of the simulator and the arrival of 
the aircraft. That is obviously a problem. It is a problem that 
Senator Reed faces in his State as well. That would be eased 
considerably if OSD and the Air Force provided $130 million in 
the budget, the 2002 budget, as was promised last year, for the 
purchase of two C-130J aircraft.
    I do not ask you to make a commitment on that, but I do ask 
you to make a commitment that you will examine this budget 
issue and get back to me on what the possibilities are, because 
obviously if you are going to have a schoolhouse to train the 
pilots and you have the simulators there you need the aircraft 
there.
    Dr. Wolfowitz. I will look into that.
    [The information referred to follows:]

    There are two C-130J aircraft in the President's budget request for 
fiscal year 2002, while a third aircraft is on the Air Force's unfunded 
priority list. For now, the Air Force will continue to conduct in-
flight training at the students' ultimate operational training bases.

    Senator Hutchinson. That is a very brief answer, but we are 
going to hold you to that.
    Dr. Wolfowitz. I will do it.
    Senator Hutchinson. We look forward to working with you, 
and we are very pleased that the President has nominated you 
and I look forward to your confirmation and being able to have 
the next couple of years to really see that commitment to the 
quality of life, to health care, to housing, to pay, being 
fulfilled and the whole retention issue that has been such a 
severe problem eased.
    Dr. Wolfowitz. Thank you. It is, I think, a unique time to 
both fix some old problems and move forward on some new ones, 
and I really look forward to working with you and this 
committee to do that.
    Senator Hutchinson. Thank you, Dr. Wolfowitz.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. Senator Nelson.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you very much.
    Dr. Wolfowitz, there is a report coming out from the 
Pentagon that questions the policy in ``Plan Colombia'' as it 
relates to strengthening the efforts at controlling the growth 
in coca and therefore the growth of cocaine to the United 
States. It is questioning whether the policy ought to be on 
controlling the area of supply or whether our efforts in ``Plan 
Colombia'' ought to be more in the nature of working with sub-
south countries as well as within Colombia to build those 
economies and to work with those countries.
    I wonder if you can give us your distinction between what 
you would consider to be an appropriate role for the United 
States in Colombia with ``Plan Colombia'' and what might border 
on nation-building. My concern is that there is a lot of 
discussion and things are categorized as nation-building when 
we disagree with the efforts, but also it seems to be sanitized 
language when we say we need to work with these countries to 
help them with their infrastructure and with their democracy.
    Can you give us a distinction? I note that in the answers 
to the questions about Colombia that you have reserved the 
right to make statements later, given the fact that you are 
only being considered for approval here at the present time, 
and I can appreciate that. But I wonder if you could share with 
us a distinction that you would have between, let us say, what 
we are doing in Colombia and what might be considered by others 
as nation-building.
    Dr. Wolfowitz. I have a lot to learn about Colombia, 
Senator, I think, including from you. I think you were just 
down there, I understand. I know the other Senator Nelson was 
and I met with him yesterday.
    It does seem to me that one of the essential things that 
has everyone concerned, including myself, is that we not find 
ourselves in a situation as we were 35 years ago where we are 
fighting someone else's civil war. I think that is the 
essential thing to stay out of, and that that means I would 
draw the line, I think, less at--I try to understand what we 
mean by the exact terms, but I think most importantly we know 
when they are doing the job as opposed to us taking over the 
job.
    I think helping the Colombians to help themselves is 
something that probably does serve American interests. But I 
would be very leery of something that looked like we were 
starting to get our troops involved in another war down there.
    Senator Ben Nelson. Is it a question of an internal 
struggle or is our policy and our national interest to stem the 
flow of drugs north to the United States, which may be a 
completely different mission than strengthening Colombia, 
although it may have some connection, but it may be a different 
mission?
    Dr. Wolfowitz. I think that is ultimately a major part of 
our interest, although I would think also it is not in our 
interest from either point of view to see a so far rather 
democratic government in Latin America taken over by drug 
lords. So yes, I think there is a difference, and I think the 
primary purpose of our efforts to date has been to stem the 
flow of narcotics.
    One of the things I need to learn is whether you can really 
disentangle those two as much as we say we are doing.
    Senator Ben Nelson. At some point you might be in a 
position to help us understand which is the primary role and 
which is the secondary role.
    Dr. Wolfowitz. I will work very hard on that, and I look 
forward to actually learning from those of you who have just 
been down there. I think there is nothing like being on the 
spot.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Thank you. That is a very important 
subject before this committee and I commend you and our 
distinguished ranking member for undertaking a trip down there.
    Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman.
    Dr. Wolfowitz, we are delighted to have you here. You have 
an extraordinary background, the kind of background I think is 
most valuable in public service. You have had three tours in 
the Pentagon, the State Department, SALT talks, but have also 
been in the private sector and in a university, where you have 
had the opportunity to study, maybe more objectively, the 
events that go on around the world, and now back in the 
leadership. I think it is tremendous that you have agreed to 
take on this challenge, which I think is very great.
    When I first came here about 4 years ago, George Gilder 
gave a little talk and told us that the 19th Century was a 
century of progress, the 20th Century was the century of the 
devil, with wars and oppressions and death, the likes of which 
we had never seen before, in a time when it really should not 
have happened, and that the 21st century has the potential to 
be the greatest in the history of mankind.
    I guess I want to ask you, do you feel that the United 
States has an interest, a responsibility, and an ability to 
help shape this new century in a way that promotes peace and 
prosperity around the world, and if so, would you comment in 
general about how that might be done?
    Dr. Wolfowitz. I believe very strongly, Senator, and I 
think the reference you made to past history is unfortunately 
all too true. The 20th Century started on an extremely 
optimistic note. People thought technology and economic 
progress was going to bring untold benefits and even outlaw 
war, that people would see war was not worth pursuing any 
longer. Then World War I came and it was all downhill from 
there. Once that terrible genie is out of the bottle, the 
consequences ripple on for decades. The consequences of World 
War I were felt well into the end of the last century.
    I think one of the greatest things to be concerned about is 
that we come to take for granted the structures that have 
produced a relatively peaceful world today. I say relatively. 
It is peaceful for us. It is peaceful for the big countries of 
Europe. Obviously, there are a lot of parts of the world that 
do not look peaceful at all. But the big wars do not threaten 
us now.
    I think it is very important to have an active strategy 
that is not just a military strategy--in fact, I think 
diplomacy and even economic policy may be just as important or 
more important--a policy that tries to protect those large 
zones of peace that we have created in the world and to try to 
extend them. I do believe a strong American military is part of 
that. I think it is an indispensable part of that. I think the 
goal is to keep wars as small and as far away as possible, and 
hopefully smaller and further away, until eventually the whole 
world benefits from that.
    Senator Sessions. So I take it that you are committed to 
creating the kind of defense force that would be relevant to 
this new world we are in for the purpose of promoting peace and 
prosperity?
    Dr. Wolfowitz. Exactly, and I also think that is a 
significant part of what Secretary Rumsfeld means when he talks 
about the need for rethinking the concept of deterrence for 
this new world.
    Senator Sessions. That is going to take a challenge, 
because we have constructed a defense establishment designed 
for a different kind of threat. Institutions, I think maybe 
even government institutions most of all, are reluctant to 
change. Do you think and believe at this point that you will 
have to confront some outmoded thinking and to recreate some 
strategies and equipment that would meet these new challenges?
    Dr. Wolfowitz. I am sure we will, and I know there is 
resistance to change. I would say that I also think there is 
particularly high resistance to change when you have a 
situation, as I think we have today, where we are trying to do 
too much with the force that we have and when people are 
stretched thin, when you are losing people because of excessive 
deployments, when they are afraid that if they identify some 
function they do not need that money will get taken away and 
they will suffer in their operational readiness accounts.
    I think all of that puts a pressure on the force that makes 
it much harder to be innovative. So I think on the one hand we 
have to fix some of these immediate needs, but if you want to 
create the head room for people to think in an innovative 
fashion, I think you have to give them some confidence that 
when they do try to do things differently there will be rewards 
for that, rather than people saying, oh, well, you have just 
demonstrated we can do without that division because you are 
experimenting with it.
    Senator Sessions. I agree. I have been to Kosovo a couple 
of times and I do believe that our men and women are basically 
doing police work. In fact, the UN was under an obligation and 
agreed to produce police forces that would allow our military 
to leave and they have not done so. So I think generating a 
system that actually produces police force in those kind of 
circumstances, so that our military do not have to be deployed, 
is the correct policy.
    Let me mention one other thing. I am on the Seapower 
Subcommittee and I chair it now. We have learned that we had, 
perhaps when you were last in the Department or in the early 
1990s, we had over 500 ships; we are now at 315. We have seen, 
as you note in your opening remarks, a 40 percent reduction in 
funding and personnel pretty much across the board.
    I believe that there will be no way to transform this 
military, to maintain it at the right level, without some 
increasing expenditures to accomplish those goals. I hope and 
believe you will find every possible efficiency. I hope and 
believe you will find programs that you do not have to continue 
to fund, that could free up money for the things that we do 
have to fund.
    But how are you feeling about this review that is going to 
take place, and how are you feeling about how much additional 
funding the Defense Department is going to need?
    Dr. Wolfowitz. I would not, even in the security of a 
closed hearing, feel comfortable taking a guess at a number 
like that. I do share Secretary Rumsfeld's general feeling that 
we probably need more, but if we are going to ask for more we 
had better be very sure that everything we are asking for is 
something we need. I suspect there are things we are doing now 
that we could either stop doing or do much more efficiently.
    I think it was President Bush during the campaign said that 
we need to spend more, but we need to spend smarter. Part of 
this review is going to be focused very much on spending 
smarter, so that if we come and ask you for more you can be 
convinced that it is needed.
    Senator Sessions. I support your idea that you need to 
conduct a review before we just continue to continue programs. 
But I do believe that you will need some additional support. We 
will need to increase this budget, not beyond reason. A solid 
increase for a number of years to compensate for a long period 
now of neglect is going to be necessary if we are going to 
maintain our ability to defend our just national interests 
around the world.
    I look forward to working with you. I am absolutely 
convinced that you and Secretary Rumsfeld are about to lead a 
tremendous revitalization of our Defense Department, and we 
thank you for it.
    Chairman Warner. We thank you, Senator.
    Senator Akaka.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to add my welcome to Dr. Wolfowitz this 
morning. I am familiar with you, as others who have been in 
Congress for a while, and I am familiar with your experience, 
accomplishments, and of course as has been said already, 
familiar with your impressive record here of service to our 
country.
    I am also familiar with your prior service as Under 
Secretary of Defense for Policy from 1989 to 1993. I'm 
particularly pleased to know that you have given service as 
Assistant Secretary of State for East Asian and Pacific 
Affairs, since policies in the Pacific have the most direct 
impact in my home State. I should tell you, in case you were 
not aware, that my friend who worked at East-West Center, Mike 
Oxenberg, just recently passed on. I know you have known him 
and have worked with him on China.
    Dr. Wolfowitz. It is a great loss to our country, Senator.
    Senator Akaka. News reports indicate that China has been 
helping develop a fiber optics communication system for Iraq's 
military. This is the same system that British and American 
forces just attacked, I understand. How important do you think 
it is that we should prevent this system from becoming 
operational and how persistent should we be in attacking it?
    Dr. Wolfowitz. Senator, I have not had the benefit yet of 
classified briefings on the details of that. It does seem to me 
the principle is very clear. If they are building something 
that threatens the safety of our air crews, we should do what 
we have to do to eliminate it or otherwise assure their safety.
    We should also, I think, make it very clear to the Chinese 
that this is behavior that has a real cost in our relations.
    Senator Akaka. I know, as I said, you have been in policy. 
Do you support a policy which would permit the Chinese to 
resume the launching of commercial satellites which the U.S. 
licenses?
    Dr. Wolfowitz. I think it depends crucially on whether we 
can have the kind of adequate safeguards that make sure that 
our missile guidance technology does not end up in the hands of 
the Chinese. As a commercial matter, it is probably good all 
around, but I think there is evidence that suggests the 
practices in the past were not sufficiently rigorous.
    Senator Akaka. As I have indicated, I regard you as a 
person who has had such a broad view of our country and our 
security. So let me ask you this one. There have been 
discrepancies in the readiness reports of operational forces. 
It is my understanding that some of the discrepancies have been 
attributed to a reporting system which is designed to provide a 
view of the current state of readiness, rather than a 
projection of the future.
    If confirmed, how will you address the issues surrounding 
the accuracy of determining the readiness of operational 
forces?
    Dr. Wolfowitz. The first thing I would do, if it has not 
been done already, is to work with Secretary Rumsfeld to make 
sure that we have a really first class person in that Under 
Secretary job, Manpower and Readiness, because this is a huge 
task. I would work with that individual to try to consider 
carefully whether the kinds of measures we are using for 
readiness are, number one, measuring what we want them to 
measure; and number two, to make sure they are not--every time 
you set up a way of measurement, whether it is military 
readiness or academic excellence, people start to game the 
system and they start to design to the measurement instead of 
to something else.
    So you have to be very careful. I suppose this is a 
Heisenberg Uncertainty Principle. When you start to measure and 
you put out a certain measurement, you change how people 
behave. You want to make sure that you are changing it in the 
way you want to change it and not in an unintended way. But it 
is a very big issue that you raise and a very legitimate one.
    Senator Akaka. I am also aware of your work out in the 
Pacific Rim and in the Philippines and what you have done 
there. Again, I want to say that I am glad to see you here and 
seeking, I think, the position here with this administration. 
We all know that the future of our country and the security of 
our country leans in the Pacific and that area, so it is 
important to have a person like you.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Dr. Wolfowitz. Thank you.
    Chairman Warner. Senator Bunning.

                STATEMENT OF SENATOR JIM BUNNING

    Senator Bunning. Thank you, Mr. Chairman.
    First of all, welcome to the committee.
    Dr. Wolfowitz. Thank you.
    Senator Bunning. I want to explore just three different 
areas with you, Doctor. First, base realignment and closures. I 
notice in your answers that Senator Warner has shared with all 
the members that you took what we call a powder. You did not 
answer the question. You said: ``As Secretary Rumsfeld noted in 
his response to advance policy questions from this committee, 
we withhold an assessment of this issue until after the 
completion of the defense review.'' At least that is what is 
written down here.
    Do you have any idea what the President's feelings are on 
base realignment and closure, because I am deeply concerned 
until I have seen the savings that occurred from the first and 
the second round of base closures and had them proven to me, 
not just put down on paper and here is what we saved, but a 
much more thorough examination. If we proceed in another round 
you are going to have a terrible time up here on the Hill 
trying to convince anyone that this is in the best interests of 
this country.
    So do you have anything to add to your statement here?
    Dr. Wolfowitz. I think I would say what I believe Secretary 
Rumsfeld said when he was up here, that he believes, and I 
agree with him, that the base structure should correspond to 
the force structure. We are only now looking at what the force 
structure ought to be as a product of this review.
    There is a general feeling that we have more base structure 
than our present force structure requires. But until the review 
is done, it is a little early to state that as a firm 
conclusion.
    You bring up another issue which I discussed with you in 
your office yesterday, and I concur very strongly that we need 
to make sure that the savings that are attributed to past BRACs 
have actually been realized and if we end up in another process 
of that kind, that we get real savings out of it. That is 
certainly something I will look into very hard if I am 
confirmed.
    Senator Bunning. Second, there is a statement that you just 
made this morning and I wonder how that fits into this 
statement. I will read from the statement: ``Finally, we must 
reform the Department of Defense structures, processes, and 
organizations. We need to seek greater efficiencies, not only 
to safeguard the taxpayers' money, but also because that will 
allow us to create better weapons systems and invest more in 
the cutting edge of our national defense.''
    I want to make sure that if we are going to do something 
here in closing down a base or removing structures that it is 
not just to save money, but that it does not force us to try to 
do more with less. If I have heard it once in the last 14 
years, I have heard it an awful lot of times, that the Defense 
Department can do more with less.
    It can like heck, and it has been proven that it cannot do 
more with less and ask for more deployments. So does that fit 
into that statement that you made?
    Dr. Wolfowitz. I certainly agree with you we have been 
trying to do more with less and the consequences are that 
frayed force that General Shelton referred to. I do believe--
when I wrote those words in that statement, I am thinking much 
more of the kinds of efficiencies that people say we could 
achieve in things like the way we do our pay and accounts 
system, the way we purchase electricity for our bases.
    There seem to be a lot of places where we are much less 
efficient than the private sector and there is no obvious 
reason why we ought to be. But I certainly agree with you the 
purpose is not simply to save money. We need that money. There 
are a lot of needs, both immediate needs and long-term needs, 
it has to be applied to.
    Senator Bunning. Last but not least, Britain's Foreign 
Minister, Robin Cook, recently was before this committee. He 
told us about the effort of the European allies to form a 
60,000-member force which would perform humanitarian action and 
perform military police type duties, such as overtaking 
security checkpoint duties in the Kosovo region and those 
things.
    Are you familiar with this effort of our European allies?
    Dr. Wolfowitz. I am in general terms and in some detail.
    Senator Bunning. Let me give you an experience that I had 
that shows that maybe we should encourage our European allies. 
I just spent a day or 2 at Fort Campbell in Kentucky, and 3,000 
of our finest young men and women are about on June 1st to go 
off and replace 3,000 people that are in Kosovo.
    I went out to the training site on site, and those men and 
women were being trained to be MPs. I asked the general, how is 
that in the best national interest of our country, national 
security, to be MPs in Kosovo? He disagreed that it was not in 
our best interest, but they were being trained to secure their 
own safety when they were there.
    Would you like to expand on that a little bit?
    Dr. Wolfowitz. I repeat I think what I said earlier, which 
is I believe it is in our interest, where possible, to get our 
allies to take over jobs that they can do and that we do not 
need to do. It is in our interest to get local forces to take 
over tasks that they can do that we do not need to do. Where we 
are talking about police work, we really ought to be looking 
for policemen or their equivalent to do it and not sending 
highly trained combat troops, in fact, as you correctly point 
out, untraining them, retraining them for a whole new task, and 
then having to retrain them for their combat missions when they 
come home. There is a lot in that that does not make sense and 
we ought to be looking for alternatives.
    Senator Bunning. I wish you good luck. Thank you.
    Dr. Wolfowitz. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Carnahan.

               STATEMENT OF SENATOR JEAN CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman.
    I want to welcome you to the committee today. I also want 
to congratulate you on your nomination and for your years of 
national service.
    Although we live in a time of peace and prosperity, these 
are certainly challenging times for the Department of Defense. 
Once the threat to our national security was formidable and 
apparent. Now the overall threat has been reduced, but we do 
not always know where the enemy is or where he is located or 
who he is or what weapons are at his disposal.
    We live in a time of unprecedented budget surpluses, but 
the pressure on the defense budget remains quite heavy. If we 
are to continue to have the best and the most highly trained 
and most effective military in the world, we have to invest in 
our military personnel. That means higher salaries and better 
health care and improved quality of life for those who wear the 
uniform.
    I think we also owe it to our troops that when they are 
placed in harm's way that they are properly equipped and that 
they are trained to perform the tasks for which they have been 
sent.
    The military services continue to demand newer and 
sophisticated weapons systems, but these demands must be 
evaluated against the type of threats we expect to face and 
balanced against competing defense and domestic spending 
priorities. There are discussions of transforming our entire 
armed forces structure, but we face a bureaucracy that is set 
in its ways and very resistant to change. So I expect that you 
will have a difficult time, but hopefully a very rewarding job. 
I look forward to working with you in those efforts.
    I have a few questions I would like to ask today. Senator 
Bond and Congressman Gephardt have been very involved in urging 
the South Korean government to purchase F-15s. I am very 
supportive of those efforts as well. The new purchase of F-15s 
is necessary to keep the F-15 production line running.
    Given the uncertainty of whether we will be relying on the 
Super Hornet or the F-22 or the Joint Strike Fighter, do you 
agree that it is in our national interest to continue the 
production of the F-15?
    Dr. Wolfowitz. Senator, I certainly think it is very much 
in our national interest to maintain a strong industrial base. 
Clearly, aircraft production is a big part of that. You asked 
me when I met with you yesterday about this forthcoming Korean 
decision. It seems to me that there are two strong principles 
here which we should emphasize to our Korean allies in their 
consideration of what kind of aircraft to buy. One is that it 
will be far more effective if we are both flying the same kind 
of aircraft. It is not just a matter of interoperability, but 
the ability to repair one another's systems.
    Second, given that their budgets are tight as well as ours, 
I hope they will buy the best value for the dollar or for the 
won, and I suspect very much that is going to be the American 
plane.
    Senator Carnahan. I also mentioned to Secretary Rumsfeld 
when he was here a concern that had been expressed to me a 
number of times. That has to do with the readiness of our 
TRADOC posts, especially the one at Fort Leonard Wood. I would 
like for you to, if you would, check on that for me and get 
back to me with more information about that.
    [The information follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The question I will ask today is one that is a little bit 
more general. I understand the Department is doing a 
comprehensive review, but I would like to hear what your views 
are on what measures the Department should take to address the 
short-term readiness of our troops.
    Dr. Wolfowitz. Clearly, one of the most serious readiness 
deficiencies that I have been briefed on is shortages in 
training facilities and lack of training time and lack of 
resources to do training properly. There is no, I think, more 
important contributor to the readiness of forces than the fact 
that they are well-trained.
    I remember going right after the Gulf War with Secretary 
Cheney to visit the Second Armored Division inside Iraq, and 
Secretary Cheney talked to a tough-looking senior master 
sergeant who I think had spent 26 years in the Army and asked 
him, was it tough? He said it wasn't anywhere near as tough as 
the National Training Center. That is the kind of training you 
want to have. It is an essential part of readiness and it is 
certainly something we will be looking hard at in this review.
    Senator Carnahan. Thank you very much.
    Chairman Warner. Thank you very much, Senator.
    Senator Collins.

               STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Dr. Wolfowitz, I first want to echo the comments of my 
colleagues in thanking you for accepting this considerable 
challenge and for bringing your considerable expertise and 
talents to bear in this exciting new position.
    Dr. Wolfowitz. Thank you, Senator.
    Senator Collins. As a new member of the Senate Armed 
Services Committee, I have had a parade of service chiefs and 
senior officers come to my office to brief me and those 
meetings have been very helpful. I have, however, been 
concerned by what I have heard. Over and over again, senior 
officers have told me that there has been a pattern in the last 
administration of robbing our modernization accounts to pay for 
pressing readiness problems.
    Indeed, one senior officer told me that he was actually 
instructed to prepare a budget in the last administration that 
he knew would not possibly meet the readiness needs of his 
service. In fact, there was a reliance on supplementals in the 
last administration that caused there to be lots of concerns 
about the training moneys available for our troops and other 
readiness issues.
    It seems to me we need a new approach and that is a lousy 
way to go about budgeting. Are you going to commit today to a 
truth-in-budgeting process so that we really know what the 
numbers are and can make sure that we are not essentially 
gaming the system?
    Dr. Wolfowitz. I think it is essential not only for 
Congress to know, but for the President and the Secretary of 
Defense to know. I certainly agree with you it is a misuse of 
the budgeting process to have expenditures that you fully know 
you are going to need submitted as an emergency supplement to 
your budget. We have to figure out how we work our way out of 
that process that you correctly identify we have gotten into.
    Senator Collins. On a related issue, I have also heard from 
these senior officers about inefficiencies within the Defense 
Department's acquisition and procurement process. For example, 
one senior officer told me that the Defense Logistics Agency 
adds a markup of 22 percent to each uniform that it buys. He 
was saying that if he could eliminate the middleman within DOD 
that he could save a great deal of money.
    Are you planning to take a thorough look at the internal 
acquisition and procurement systems of DOD to see whether there 
are ways to improve efficiencies and perhaps save substantial 
sums of money?
    Dr. Wolfowitz. Absolutely. One of the things that has 
struck me a lot in briefings I have had over the last 6 weeks 
or so is there just are shelves full of studies going back at 
least to David Packard's commission in the early 1980s that 
identify all kinds of reforms. I keep asking the question: We 
do not need more studies; we need to implement these things; 
why is it not happening?
    It is not that people have not tried, and it is not as 
though it is going to be simple to do so. But I certainly 
think, with this unusual man we have as Secretary of Defense, 
we have a real opportunity now to get some things done that 
everyone agrees are long overdue.
    Senator Collins. I agree. I think everyone knows what the 
problems are, but there has been too much internal resistance 
to solving them that has prevented needed reforms from being 
implemented, so I appreciate that commitment.
    Finally, I want to echo Senator Sessions' concerns about 
our current shipbuilding rates. The current rates of 
shipbuilding do not support the goal of a 300-ship naval fleet 
as identified by the last QDR. The Clinton administration's 
defense budgets have been gradually taking the Navy, not toward 
a 300-ship Navy, but rather toward a considerably smaller 
fleet.
    Adding to the challenges are the facts that many defense 
experts believe that even a 300-ship Navy is inadequate for our 
current operational and deployment requirements. I hope as part 
of the top-to-bottom review that you and the Secretary are 
conducting that you will take a very hard look at what we can 
do to make sure that our shipbuilding budgets are adequate to 
make up for the deficiencies of the past 8 years.
    Dr. Wolfowitz. That will be a very important part of what 
we look at, yes.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator, very much.
    Senator Nelson.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Thank you, Mr. Chairman.
    I just want to say to the ranking member, thank you again 
for that trip to Colombia over the last few days. It was 
extraordinary, it was informative, it was personally enjoyable 
to be with you and the other members, and I thank you very 
much.
    Senator Levin. Thank you. Your contribution to that very 
quick trip was really crucial. Our learning was mutually at a 
high level. You and Senator Ben Nelson, Senator Jack Reed, and 
I travelled and again, thank you for participating.
    Senator Bill Nelson. Dr. Wolfowitz, it was a pleasure to 
visit with you yesterday. I want to encourage you on the 
seeming new policy of the administration to break the mold, to 
think outside the lines. It is, I think, refreshing that you 
approach it this way, and with the changing nature of the 
threat to the United States I think it is essential. I thank 
you about that.
    Now, what I would like to get from you is some of your 
ideas about what are going to be the appropriations needs over 
the course of the next decade. Chairman Warner and a group of 
other Senators from this committee had recently written a 
letter asking for necessary appropriations having to do with a 
supplemental for this year. Senator Warner, if I recall, it 
totaled some perhaps $7 billion additional moneys in this 
particular year. This is for the 2001 budget, even before we 
get to the 2002 budget.
    If I recall also, that had to do with pay and benefits, 
health benefits. It had to do with spare parts. It had to do 
with the cost of fuel and a number of things like that. That is 
$7 billion before we even get to the decade that we are talking 
about.
    Can you give me some clue as to what you think are going to 
be the needs of increased defense spending over the course of 
the next decade?
    Dr. Wolfowitz. I suppose the real answer is without the 
review I cannot say very much. But I guess if you want a clue, 
it seems to me there is a general feeling, unless we are going 
to radically change what we try to do in the world--and I say 
radically because I think we probably do have to change what we 
try to do in the world, and we may want to do more. But unless 
we are going to do radically less, we probably need more 
resources.
    But we also have to find savings within what we do, because 
we cannot simply add to the defense budget. That is why even 
the short-term question of what do we need to make it through 
2001 is something that requires a thorough look at what we are 
already spending our money on.
    Senator Bill Nelson. I know that that is the answer that 
you have to give at this point and I respect that. So let me 
suggest what I think the truth is on the answer. The fact is, 
as we change the nature of our defense posture we can save 
money, but at the same time, since the reason for a Federal 
Government in large part is to provide for the national 
defense, we cannot be penny wise and pound foolish, 
particularly with research and development and particularly 
with regard to the provision of our forces in the field, the 
supplies, the material, and the quality of the troops by virtue 
of what it is going to cost in competition with the private 
sector in order to be able to retain them.
    I think the bottom line is that there is going to be a 
considerable demand for increased spending over the course of 
the next decade. I think we are fooling ourselves if we do not 
plan for that. We have some choices to make very shortly in 
formulating a budget and how much are we going to allocate for 
defense and how much for education and for prescription drug 
benefit, and balance all that against the need to protect 
social security and the surplus in the Medicare trust fund, and 
then balance all of that on the question of how large is going 
to be the tax cut.
    So I think there are, as we approach the subject matter of 
this committee, people that are fooling themselves if they 
think that we are not going to need substantial defense 
increases over the next 10 years and do so at the peril of 
providing for the common defense if you use it up in other 
areas so that we do not have it, or so that the only choice 
that is left to us is the choice of going back into deficit 
financing, which was one of the reasons of a poorly performing 
economy in the decade of the 1980s.
    So you see where I am coming from, Dr. Wolfowitz. I 
congratulate you on your nomination. I congratulate you ahead 
of time. I am going to be visiting with you about these 
budgetary matters in the future.
    Dr. Wolfowitz. I look forward to it, Senator. Thank you.
    Senator Bill Nelson. Thank you.
    Chairman Warner. Thank you very much, Senator.
    We will now have a second round of questions. I will 
initiate those questions and my distinguished colleague, Mr. 
Levin, will follow up.
    I was quite interested in your selection of a quote in your 
opening statement, that General Creighton Abrams said when the 
all-volunteer force was first created that, ``People are not in 
the Army; people are the Army.'' I was privileged to serve in 
the Pentagon at that time when he was Chief of Staff and I have 
the greatest respect for that military leader. He was exactly 
right.
    As you said, you will become the chief operating officer 
and people will be at the very top of your agenda. This 
committee, indeed Congress as a whole, are very concerned about 
the inability of the Department of Defense, all services, some 
with varying degrees, but all services, having difficulty 
retaining particularly that critical group of younger officers, 
captains, so to speak, lieutenants in the Navy, who are making 
that pivotal decision as to whether to go on and perhaps commit 
for a career of at least 20 years.
    Similarly, the enlisted ranks, the middle grade and senior 
petty officers, sergeants and the like, are likewise not 
staying in the numbers that we need.
    Now, there has been some modest improvement here recently, 
possibly as a consequence of the initiatives taken by the past 
administration and Congress. This committee took the initiative 
to increase the pay raises, took the initiative to increase the 
quality of health care.
    What are your initiatives that you are going to assert, if 
confirmed and you take on this responsibility, to stem the flow 
of these young people out of the military, somewhat induced by 
very lucrative opportunities for their trained skills in the 
private sector?
    Dr. Wolfowitz. Pay and allowances are one of the first 
things one looks at. You are absolutely correct, this committee 
has taken very important decisions, including just at the end 
of the last year, that I think should help us. Some of I 
suppose the kinds of tangible benefits that Senator Cleland 
referred to earlier that can help service people think that by 
staying in they are ensuring their children's future, that is 
very important.
    I think, as I said earlier, it is equally important to make 
sure that people feel that they are getting the right kind of 
training and equipment to perform the missions, because at the 
end of the day I think what keeps people in the service will 
never be the pay and allowances. Pay and allowances have to be 
adequate, but they can almost always earn more money with less 
time away from home and less risk of life doing something else. 
It is the sense of mission.
    It is very hard to convince people of a sense of mission if 
they are not being given equipment for that mission or the 
training for the mission is not adequate.
    I also believe that, and I think hopefully this will be 
part of this review, we need as a country--and certainly this 
committee makes a big contribution in that respect--to convince 
the country that the mission these men and women are doing is 
important, because that I think is one of the greatest psychic 
rewards and therefore one of the greatest rewards that they get 
for service.
    So you have to look at it, I think, as a whole. It starts 
with pay and allowances, but it goes right up to what the 
President, Congress, and the country believe is the importance 
of what they are doing.
    Chairman Warner. It is also family separation, Dr. 
Wolfowitz. That is brought about by overdeployments in terms of 
the number of times that these young men and women are sent 
abroad. They will accept not only a reasonable level, but a 
high level, because that is what they joined to do. But I think 
we have in the past few years seen where we have crossed that 
invisible line to where they are now confronted with serious 
family situations because of their departure from family for 
prolonged periods, and they are all too often coming at a 
critical time when they are trying to raise some young 
children. How well all of us who have had that great privilege 
and challenge in life know the essential need for the two 
parents to be together as much as possible with those children 
in their formative years. Bear that in mind.
    Dr. Wolfowitz. You are absolutely right, Senator.
    Chairman Warner. Also, but for a spare part no bigger than 
that tip of that pencil, airplanes cannot fly. The mechanics 
are instructed to go over and take it out of another airplane 
which is operational and cannibalize it and put that airplane 
parked for a while. That is why I am urging consideration of 
this supplemental. We have to get into the spare parts 
replenishment and the distribution of those spare parts right 
away, because these young people working, whether it is on 
ships or on the line of airplanes on the tarmac working on it, 
they need to feel that we are supplying those parts such that 
they can keep those pieces of equipment up and ready.
    In my most recent visit to Kosovo a week or so ago, we 
visited a young captain who had several tanks and other 
motorized vehicles high on a hill in that sector that is 
becoming more and more destabilized, the valley. He said some 
of those units that he had up there were in a precarious 
situation because of spare parts. There is a trooper right out 
on the front line taking risks.
    Again, I know this question of the supplemental is not a 
cheerful one, but I take the brunt of criticism directed. I 
just think it has to be studied and studied very carefully. I 
am confident that Senator Stevens, Senator Byrd, and others 
that are entrusted with the appropriations--therein is the 
primary responsibility--can manage that in a way that we can 
achieve it, hopefully for the military, and maybe restrict it 
and let the President indicate that he will veto if this thing 
becomes a giant snowball rolling down the hillside with 
everybody's need attached to it. So I will continue to work on 
that.
    The industrial base. We can really be no stronger as a 
Nation and a military if we do not have those companies who are 
willing to get out there and put at risk their capital and to 
have the ability to attract the talent that is necessary to do 
the research and development and the test and evaluation on 
these systems that are coming along.
    What are your views about assisting the industrial base, 
and particularly the question of across-the-ocean mergers? They 
are primarily in the Atlantic, trans-Atlantic, but they could 
well become also in the Pacific region a factor that concerns 
the industrial base here at home. That will be your 
responsibility. What are your views on that subject?
    Dr. Wolfowitz. First, Senator, Mr. Chairman, I am very 
concerned about the health of our industrial base. It is 
crucial to our ability to support forces in the future. It is 
crucial to our ability to innovate. I think it is hurting 
badly.
    I think when one looks at this issue of trans-Atlantic or 
even possibly trans-Pacific mergers, I think the crucial 
question is do these mergers contribute to our ability to 
innovate, contribute to the long-term health of our industrial 
base, or conversely are they a kind of fire sale where we are 
transferring absolutely essential American capabilities abroad 
in a way that will hurt our long-term competitiveness.
    I think some degree of distributing production across 
defense establishments of our allies as well as ourselves may 
be a way to make the overall industrial base more efficient. 
But certainly one of the things we better look at is to make 
sure that if some of that is going eastward across the Atlantic 
that there is enough gain coming back the other direction that 
we are all better off in the long run.
    Chairman Warner. I thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I want to go back to Colombia first. Senator Bill Nelson 
indicated that four of us went down to Colombia last weekend. 
Let me just give you a quick impression, and then ask you for a 
response. First, our focus clearly has to be on the demand side 
of this equation. We are creating the demand which is creating 
the supply that Colombia currently is supplying in the area of 
cocaine. But stemming the flow of cocaine and the supply of it 
is an important goal as well. That is number one.
    Second, we should not send our forces there to try to go 
after the narco-terrorists and the narco-suppliers, but we 
should, as you put it, assist them to assist themselves, to go 
after those folks that are creating this problem.
    This is third--unlike many other countries in Latin 
America, the army in Colombia has been supportive of the 
democratic government in Colombia traditionally and is now. 
Strengthening that army is essential to the survival of that 
democracy against the onslaught of the narco-traffickers, 
number one. Those narco-traffickers are now funding the threats 
to that democracy both from the guerrillas and from the 
paramilitaries. So, when we strengthen the professionalism and 
the training and the protection of human rights by that army, 
we are in the process trying to accomplish two things. First, 
we are stemming the flow of narcotics to this country, 
attempting to reduce that coca crop. Second, we are in the 
process strengthening Colombian democracy. Both things are 
going on and they are inseparable.
    So when you talk about disentangling the two goals, the 
goal of supporting Colombian democracy or nation-building and 
the goal of stemming the flow of cocaine, both of those goals 
are dependent upon strengthening the professionalism, training 
of the army, and making sure that they protect human rights in 
order to reduce the power of the narco-traffickers. So the 
goals, it seems to me, are inseparable and talking about 
disentangling them may miss the point. I just want to give you 
that thought and give you a chance to respond if you want, or 
just to think about it, either way.
    Dr. Wolfowitz. I will respond. You are taking me in the 
direction I was heading already. I can see a clear difference 
between their doing the job and our doing the job, and that is 
the line I would like to keep clear and bright. I know people 
make a distinction between fighting narco-terrorists and 
fighting the civil war. I guess I have--you are saying it 
yourself. It is hard to disentangle because the instrument for 
doing both, especially if they are going to do it themselves, 
is their own military.
    When I was Ambassador in Jakarta, the Colombian 
Ambassador--and it may have been the first they ever sent to 
Indonesia--was not a foreign service officer. He was a judge 
who had sent some narco-terrorist to jail and he was in 
Indonesia essentially to protect his life. He told me with 
great bitterness that all that money from the United States 
that's sucking cocaine up from Latin America is destroying his 
country and destroying democracy in his country. It was very 
poignant and very moving. People like that judge-become-
ambassador are very courageous people.
    It seems to me if they want our financial support, our 
material support, our training support, within limits we ought 
to provide it. If they want the lives of our service people, 
then we will say, it is your country, it is your lives that 
should be on the line.
    Senator Levin. They have not asked for that.
    Dr. Wolfowitz. I know they have not.
    Senator Levin. I do not think there is any support for that 
that I know of in this country. What there is, however, support 
for in ``Plan Colombia'' is what I just described and what you 
just described. I gather you, in general, are supportive of 
that goal; is that fair to say?
    Dr. Wolfowitz. Yes.
    Senator Levin. Back to Iraq for a moment and what many 
thought, including myself, was an unclear signal to Saddam 
prior to his invasion of Kuwait. Would you comment on that? I 
think you have spoken on that issue before. Comment on the 
importance of clarity of our signals and the lack of clarity in 
terms of that signal to him as to what the impact would be 
should he move on Kuwait.
    Dr. Wolfowitz. Well, I believed at the time and I believe 
now that we sent ambiguous signals. I argued strongly at the 
time that we should send a clearer signal. In fairness to that 
administration, it also has to be said that one of the greatest 
ambiguities came in congressional testimony where an Assistant 
Secretary of State was pushed in my view a little bit too hard 
to say exactly what our commitments were.
    I liked Secretary Cheney's formulation at the time, which 
was: We have stood by our friends in the past and we will stand 
by them in the future, no further questions. I think if the 
administration had stuck to that line it would have been a 
better signal.
    But having said that, two things. Number one, given how 
Saddam behaved when he was faced with the threat of Desert 
Storm and his unwillingness to yield at that point, I think 
there is every reason to be skeptical that even a very clear 
signal would have deterred him. He was convinced that we were 
weak, that we had lost in Vietnam, we would lose again there.
    Number two, there is no question that once he invaded it 
was a great help in dealing with our Arab friends in the region 
that no one could accuse us of having provoked the attack. 
There is always a little bit of a tradeoff between sending 
clear signals on the one hand and being seen as being 
belligerent on the other.
    At the end of the day, I think history probably would have 
taken a similar course.
    Senator Levin. Just two last questions, and I thank our 
Chairman for yielding to me and so graciously allowing me to 
extend my questions so I can go to another hearing.
    When you were Under Secretary for Policy in President 
George Bush's administration, there was an employee in the 
Office of Nonproliferation Policy who became convinced that the 
administration was about to present false information to 
Congress in a classified briefing about Pakistan's nuclear 
capabilities. The individual complained to his supervisor and 
the supervisor then became concerned that the employee might 
take it upon himself to correct the inaccurate information 
presented to Congress.
    I am not getting into the merits at all of that case, as to 
who was right or who was wrong. But there was a response by the 
supervisor there ordering him not to supply that information, 
and terminated the employment and apparently acted to ensure 
that security clearances be removed from that employee. I do 
not want to get involved in the specifics of that, either. That 
is the background. There is apparently litigation going on, so 
I am not asking you to comment in any way which could affect 
that litigation. The reason I am asking you this is because of 
the questions asked of you at this hearing about providing 
information to this committee and to our designated staff, who 
are cleared to receive classified information. It is important, 
I believe, to us that people who wish to come to give us 
classified information in no way be deterred from doing so or 
be threatened or be in any way deterred from providing that to, 
again, designated staff who are cleared to receive classified 
information.
    The Whistleblower Protection Act does not apply to this 
type of case because information is classified. But putting 
that aside, do you believe that it is appropriate in any way to 
retaliate against an employee who threatens to take accurate 
information to properly cleared congressional staffers, as a 
matter of policy?
    Dr. Wolfowitz. My answer is absolutely not. I do not 
believe that kind of retaliation is appropriate at all. I would 
go a bit further, too. I think it is terribly important, and on 
that specific issue of what Pakistan was doing with nuclear 
weapons there was a legal obligation to keep Congress 
appropriately informed.
    Senator, I was not even aware of that employee or the 
entire case until about 18 months ago when I was asked to give 
a deposition in a civil suit. Most of the events he alleged 
took place before I was confirmed as Under Secretary.
    Senator Levin. I did not want to get into your----
    Dr. Wolfowitz. Well, OK, but you brought it up. So I 
believe----
    Senator Levin. I assume you were aware of it one way or 
another.
    Dr. Wolfowitz. Only within the last----
    Senator Levin. The issue. I do not mean back then. I mean 
you are aware of it.
    Dr. Wolfowitz. I have been aware of the issue. In fact, 
there have been times on that issue when I specifically sensed 
that people thought we could somehow construct a policy on the 
house of cards that Congress would not know what the Pakistanis 
were doing. I have always thought policies based on withholding 
information from Congress are going to fail in the long run. In 
that case, there was a clear legal obligation to keep Congress 
informed.
    Senator Levin. I appreciate that.
    My final question is the question of whether and how to 
deploy a National Missile Defense part of the strategic review 
or is it left out of the strategic review as far as you know?
    Dr. Wolfowitz. My understanding is it is a piece of the 
strategic review. There are many pieces. There is not a 
single--as Secretary Rumsfeld said when he was up here, surely 
one of the things that is going to come out of this strategic 
review is we can make some decisions now, we are going to have 
to review some more. I do not think this is a process that is 
going to end. But clearly you cannot make decisions about long-
term resource requirements without factoring in what missile 
defense requirements are going to be.
    Senator Levin. Mr. Chairman, let me just again thank you. I 
want to congratulate Dr. Wolfowitz and wish him the best of 
luck. I know there will be a lot of important efforts here to 
keep this committee on the bipartisan tack that it has always 
tried to follow and that we can look to you to assist us in 
that process.
    Dr. Wolfowitz. Thank you. I think I have had courtesy calls 
with 18 members of this committee, and every one of them has 
been a strong bipartisan supporter of a strong national 
defense. So I am sure the other six are as well, and I really 
look forward to working with this committee if I am confirmed.
    Senator Levin. Thank you.
    Chairman Warner. I have several more questions I wish to 
ask. Speaking for myself and I think others, we were shocked 
about this recent series of allegations regarding a long and 
trusted member of the Federal Bureau of Investigation and the 
allegations of his sharing classified material with another 
nation. Also, regrettably, a person who preceded you in the 
office to which you aspire to serve this Nation was the subject 
of a pardon recently by the President with regard to 
allegations about his handling of classified materials.
    As the chief operating officer, it seems to me, in 
consultation with the Secretary of Defense and other persons in 
the administration, you should undertake a review of the 
Department of Defense with regard to the handling of classified 
material and the means by which to detect any violation of the 
regulations of the use of that material by employees at all 
levels of the Department.
    Therefore, my question to you is how do you view the 
importance of classification, the responsibility that those 
entrusted with documents that are classified and how they 
should deal, not only in the safeguarding of that, but the 
sharing of that information? How do you intend to deal with 
that issue and what are your views with regard to classified 
material?
    I feel very strongly that the most rigid rules should apply 
and that when an individual is found to have violated, and 
subject to the appropriate legal actions that have to be 
reviewed to verify that violation, whether it is a court case 
or whatever, that accountability of the strongest measures 
should be done. What are your views?
    Dr. Wolfowitz. I agree very strongly with you about that, 
Senator. It is kind of shocking, the extent to which classified 
information frequently and with great speed finds its way into 
public in one form or another. I do think we need to do 
everything we can to hold people accountable, to make it clear 
that we take this seriously.
    I know any one of us has come across a classified document 
that we may have thought was overclassified. But that does not 
give you an individual right to take it on yourself to 
declassify it or downgrade it. There are procedures for doing 
that and they should be stuck with.
    You are talking about two very different things and the 
second one--the first one is a matter of treason. We clearly 
have to look at what that whole Hansen case tells us about our 
counterintelligence capabilities, which clearly have missed two 
big ones in recent times, and think about how to protect 
ourselves from that kind of traitor.
    On the more almost mundane matter of the day-to-day 
handling of classified materials, I think we lead by example. 
We have to be careful ourselves. We have to take infractions 
seriously. If we think that things are overclassified, then we 
need in an orderly way to take care of that problem, but not 
let individuals take it on themselves.
    Chairman Warner. Are you prepared to commit to this 
committee that, if confirmed, you will undertake as one of your 
top priorities a review of that subject within your Department?
    Dr. Wolfowitz. I will do so, Mr. Chairman.
    Chairman Warner. Thank you.
    The President, I think quite wisely, and the Secretary of 
Defense, in the course of his hearing before this committee, 
put increased emphasis on the subject of homeland defense. This 
committee has taken a number of initiatives to strengthen the 
ability of our communities to deal with a terrorist attack 
involving weapons of mass destruction, biological, chemical. We 
have really been out on the cutting edge. We have a 
Subcommittee on Emerging Threats and Capabilities and it has 
been one of the most active subcommittees. I commend the 
chairman and ranking member for the past work and indeed what 
they propose to do in the coming year.
    But this is a subject of great concern to this Senator and 
I think many others. It is astonishing. I do not want to harp 
too much on my recollections, but I remember when we had 
blackouts in Washington, D.C., in the early stages of World War 
II. I was a youngster then. I remember it well. People would 
sit here and listen to me make that statement in astonishment.
    But that was the last time, really, that this Nation felt 
imperiled at the hands of an adversary. At that time it was 
primarily the Nazi submarine fleet, which was actively sinking 
shipping off of the shores. I will not go into further details, 
but it was the silhouetting of the shipping as a consequence of 
the lighting emanating from the shores. A drastic number of 
ships lost right off the Atlantic coast of the United States.
    There have been other incidents. But now we have come to 
the point where we are threatened by intercontinental ballistic 
missiles, we are defenseless. I commend the President for his 
strong initiatives to address the question of missile defense. 
We have covered it here today.
    But the terrorism that could strike here at home is a major 
concern. We have taken initiatives in the last authorization 
bill of this committee, to try and urge a reorganization of the 
lines of responsibility in our Federal Government. I do not 
have it with me, but I will see that you get it, a chart 
showing the voluminous number of crossed lines and crossed 
authority that exists today. I do not say that as a criticism 
of the past administration. It is just a statement of fact.
    I would hope that you would put this high on your list of 
priorities to address, because we have to have, I think, 
greater involvement by all departments and agencies of the 
Federal Government in this question of homeland defense. I just 
wondered what you thought about the missions for the Department 
which you will hopefully be responsible as Deputy Secretary of 
Defense. Right now the Department of Justice has primary 
authority, and we come up against the time-honored law of Posse 
Comitatus which limits the involvement of the U.S. military as 
it relates to the daily lives of our people in this country. I 
think that doctrine is well-founded in history and should be 
protected.
    But again, the assets and the knowledge of the Department 
of Defense need to be shared at every level of government and 
with the communities as to how best to protect themselves and, 
if an incident were to happen, how we can best assist those in 
the community that will come to the rescue of their fellow 
citizens.
    Dr. Wolfowitz. Actually, I know John Hamre, when he was 
Deputy Secretary, took a very strong interest in this issue, as 
will I if I am confirmed.
    Chairman Warner. I commend him. He did indeed. We talked 
many times on this subject.
    Dr. Wolfowitz. Actually, during, I guess it was the 
transition--it was actually the period of the recount of the 
Florida vote--he convened a very interesting 3-hour session 
over at CSIS of officials from the Clinton administration with 
a number of people prospectively on both the Gore and Bush 
group, to talk about this issue. What that discussion and many 
others reveals is there is a fundamental problem that you 
identify of how the U.S. Government organizes itself to deal 
with this problem, which has both a domestic and a foreign 
aspect, both a law enforcement and a security aspect.
    We need to do everything we can to prevent that kind of 
attack, everything we can, where possible, to defend against 
it. But also this question of how you respond is crucial. I was 
in Israel during the Gulf War with Deputy Secretary Larry 
Eagleburger, whom President Bush sent over to persuade the 
Israelis not to get in the war. So I have been in a country 
under missile attack. We knew the odds and the odds 
individually were not that dangerous, but the whole country is 
immobilized by it.
    The Israelis had a very substantial civil defense effort 
and they were quite clear that without that civil defense 
effort, without the little bit of warning that our satellites 
were able to provide so the people could go into shelters, they 
would have had a mass panic. So the ability to deal with an 
event if it happens I think is very important for the stability 
of society as a whole. It has to get a high priority.
    Chairman Warner. That is an interesting historical footnote 
that you mention about your visit with my old friend Dr. 
Eagleburger, former Secretary of State. I too was in Israel, on 
February 18th, 1991, with Senator Nunn--then Chairman of the 
Armed Services Committee--Senator Stevens, and Senator Inouye. 
We were in the headquarters of the Defense Ministry when the 
last Scud fell on Tel Aviv. We had to stop our meetings and put 
on our gas masks.
    The strike landed a mile or two away. I never felt--well, 
you are in the hands of the gods when that thing came in, 
because it did not have any particular target except to hit the 
population. It was used as a terrorist weapon, not as a 
military.
    The people of Israel and the government of Israel showed 
enormous courage at that time to withhold their ability, and 
they had it, to retaliate because they knew of how it could 
fracture and impede the progress of the coalition at that time 
engaged in repressing Saddam Hussein.
    So I share that. But I hope that you put this high on your 
agenda, this subject of homeland defense.
    Dr. Wolfowitz. I will, Mr. Chairman. I hope our whole 
government does.
    Chairman Warner. The National Missile Defense system, as I 
said, the President is taking a strong leadership role, 
together with other members of his cabinet. Secretary of State 
Powell, I think in a very forceful and successful way, based on 
the reports received, asserted the right of the United States 
to defend itself in the face of this threat. We stand, as I 
think we have to repeatedly say, defenseless against an 
incoming strategic intercontinental ballistic missile, and 
indeed other missiles for that matter, and we must marshall the 
resources of this country to determine whether or not we can 
devise a limited ability to interdict the accidentally fired or 
terrorist missile or whatever the case may be, up to a dozen or 
more of these missiles.
    As the President and Secretary Powell and others have 
pointed out, it is not a system that in any way should lessen 
the deterrence that Russia looks to its system to provide, or 
indeed other nations. It is simply an essential protection for 
our cities and communities here at home.
    Now, you have spent time on this. Have you ever sorted out 
the sea-based system and how that could be brought in a timely 
way to augment the current architecture that was employed by 
the last administration?
    Dr. Wolfowitz. If I may make one general point quickly and 
then get to your question. I think you said something which I 
think is missed too often, and that is we are not talking about 
missile defense as it emerged during the Cold War. We are not 
talking about SDI, we are not talking about how to compete with 
the Soviet Union. We are talking about a limited missile 
defense, of a kind that, frankly, I would think the Russians 
themselves would want to have.
    On the specific question of sea-based options or, I would 
say, other options more generally, I think one of the things we 
need to do, and hopefully the Russians will concur in this and 
we can do it cooperatively, is to relax a number of the 
restrictions of the ABM Treaty that I believe have prevented us 
from looking adequately at those kinds of options. I am just 
starting to get read into this on a classified basis, but it is 
quite clear to me from what I have seen already that our 
development would have looked very different over the last 10 
years if the ABM Treaty had not been there or if it had been 
modified.
    What we want to do is find the most effective, least 
expensive, and least provocative way of proceeding in this 
direction. I think that is something that hopefully we can 
persuade the Russians and our allies and many other people is 
in their interest as well.
    Chairman Warner. I thank you for that observation and I 
share that. Actually, I was in the Department at the time the 
ABM Treaty was negotiated and happen to have been part of the 
delegation that attended the signing, that ceremony. I was 
there for other purposes.
    Dr. Wolfowitz. It was a different era, was it not, Mr. 
Chairman?
    Chairman Warner. It was a different era. It was May 1972, 
and at that time I was Secretary of the Navy and had finished 
negotiations of the Incidents at Sea agreement which was signed 
the day before the ABM Treaty.
    The point being that, yes, we do need to address 
modifications, amendments, to the ABM Treaty because the Treaty 
does serve, I think, an important role in the architecture, the 
world architecture of arms control agreements. But I think 
progress is being made with the Russians to come to the 
realization that this country has a right to defend itself and 
employ that technology which can be most efficiently and cost 
effectively used to achieve that system.
    Again, I commend the President for his very clear, forceful 
message to the entire world that he is going to protect the 
rights of this country to defend itself and that he will 
pursue, I think, in a diligent way, in consultation with our 
allies, amendments to the ABM Treaty.
    Dr. Wolfowitz. I think we are getting more of a bipartisan 
consensus in this country, which is progress.
    Chairman Warner. I think you are correct in that.
    But I do believe that we have to begin to put more focus on 
the sea-based option as a follow-on or an adjunct, whatever 
phraseology you wish, because that gives us in my judgment a 
greater protection of the instruments themselves on the high 
seas from interdiction of the defense system as a part of any 
attack, a limited attack.
    Now, moving on to Secretary Rumsfeld's very important point 
when he was before this committee, he said that this Nation 
needs ``a reasonable exit strategy'' as a precondition for the 
decision to make a military intervention. What definition would 
you apply to ``a reasonable exit strategy''?
    Dr. Wolfowitz. That we can define what our goals are, 
successfully achieve those goals, and then take our forces out. 
I suppose one might--at least that would be what I would 
generally strive to achieve. I suppose there might be a 
situation like the one we used to have in Europe or the one we 
still have in Korea, where ``exit'' is not the right word; it 
is a long-term commitment, but a stable one where you have a 
deterrent force in place.
    But certainly for most of the things we are talking about I 
would hope it is the kind of thing where you can finish the job 
and be done.
    Chairman Warner. Dr. Wolfowitz, that concludes the 
questions from the committee. I think that your responses have 
been very clear. I thank you for your what I perceive as total 
cooperation today. This committee will very shortly gather to 
determine the balance of the confirmation process, but at the 
moment I am optimistic we can conclude it in an expeditious 
manner.
    I thank you very much.
    Dr. Wolfowitz. Thank you, Mr. Chairman.
    [Whereupon, at 12 noon, the committee adjourned.]

    [Prepared questions submitted to Dr. Paul D. Wolfowitz by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                               February 23, 2001.  
Hon. John Warner,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the policy 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Paul D. Wolfowitz.
cc: Senator Carl Levin,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. The establishment of the unified and specified combatant 
commands, the delineation of responsibilities, and most importantly, 
the focus on ``jointness'' outlined in the Defense Reorganization Act 
of 1986 has enhanced the readiness and warfighting capabilities of the 
U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have changed the way the Department of 
Defense works by strengthening the role of the Chairman of the Joint 
Chiefs of Staff and the combatant commanders, and significantly 
improving the ability of the Department to protect America's security 
and further its vital interests. The reforms have helped improve the 
interaction among the services in conducting military operations by 
making joint operations the norm.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted below to be an 
important aspect of these defense reforms. Each one has enhanced the 
ability of the Department of Defense to carry out its assigned 
responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Do you anticipate submitting legislative proposals to 
amend Goldwater-Nichols?
    Answer. If confirmed as Deputy Secretary of Defense, I will work 
with the Secretary to review the extent to which the reforms have been 
implemented and the extent to which they have achieved their stated 
goals. As Secretary Rumsfeld has noted, we would consult with Congress 
on any changes that might be appropriate.
    Question. If so, what areas do you plan to address in these 
proposals?
    Answer. It would be premature to offer any thoughts on the question 
at this time.
                             relationships
    Question. What do you see as the relationship between the Deputy 
Secretary of Defense and each of the following?
    The Secretary of Defense
    Answer. If confirmed, it is the Secretary's intent that I act as 
the Department's chief operating officer under the Secretary's 
direction as chief executive officer. It will be my duty to execute the 
policies of the President and the Secretary within the department, and, 
when new direction or guidance is needed, to facilitate the timely, 
accurate, and reasoned presentation to the Secretary of issues that 
require his or the President's consideration.
    Question. The Under Secretaries of Defense
    Answer. My relationship with all other senior officials of the 
Department will, for the most part, be based on the chief operating 
officer role described above. If I am confirmed, I will seek to carry 
out the policies and guidance of the Secretary with respect to actions 
and initiatives of the respective Under Secretaries, and bring to the 
Secretary's attention facts, options, analyses, and recommendations 
from the Under Secretaries when such guidance or direction is needed.
    Question. The Assistant Secretaries of Defense
    Answer. My relationship with Assistant Secretaries of Defense and 
other senior officials of the Office of the Secretary of Defense would 
be similar to that described above in relation to the Under Secretaries 
of Defense.
    Question. The Chairman of the Joint Chiefs of Staff
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I intend to work closely with 
the Chairman to assure his full participation in the leadership team of 
the Department of Defense.
    Question. The Vice Chairman of the Joint Chiefs of Staff
    Answer. The Vice Chairman of the Joint Chiefs of Staff has a vital 
role in developing and implementing joint plans, programs, and policies 
for the Services. If confirmed, I anticipate working very closely with 
the Vice Chairman.
    Question. The Secretaries of the Military Departments
    Answer. The Secretaries of the Military Departments carry out the 
policies of the President and the Secretary of Defense in their 
respective Military Departments and make recommendations to the 
Secretary and to Congress relating to their Military Departments and 
the Department of Defense. If confirmed, I intend to work closely with 
the Secretaries of the Military Departments. I will assure that they 
are aware of the President's and the Secretary's policies and 
priorities and assist them in contributing to the successful 
development and implementation of effective DOD policies and programs. 
This includes assuring that the recommendations of the Secretaries of 
the Military Departments are brought to the Secretary of Defense and 
that they understand his policies.
    Question. The Chiefs of Staff of the Services
    Answer. The Chiefs of Staff provide advice to the Secretaries of 
their respective Military Departments and other senior officials, and 
carry out the policies of the Secretaries of their respective Military 
Departments and the Secretary of Defense. My relationship with the 
Service Chiefs will follow the model outlined above, but with the extra 
dimension that my relationship will be in the context of my overarching 
relationship with the Military Departments and the Joint Chiefs of 
Staff.
    Question. The Service Acquisition Executives
    Answer. The Service Acquisition Executives are most directly 
involved with their respective Service Secretaries and the Under 
Secretary of Defense for Acquisition, Technology, and Logistics. In the 
role of chief operating officer of the Department, I will, if 
confirmed, promote the successful involvement of the Service 
Acquisition Executives in the development and execution of the policies 
and initiatives of the Secretary of Defense in the acquisition field.
    Question. The Inspector General
    Answer. As the Department's chief operating officer, I consider it 
my responsibility to support the Department of Defense Inspector 
General (DODIG) in carrying out his or her duties as set forth in the 
Inspector General Act.
                             qualifications
    Question. Section 132 of Title 10, United States Code, provides 
that the duties of the Deputy Secretary of Defense are to be prescribed 
by the Secretary of Defense.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. In general, if confirmed, I expect to be the chief 
operating officer of the Department while the Secretary fulfills the 
role of the chief executive officer. It will be my duty to execute the 
policies of the President and the Secretary within the Department and, 
where necessary, to present well-reasoned advice when policy must be 
changed or modified. If confirmed, I will endeavor to establish close 
and effective relationships with Congress and to insist that 
responsible officials in the Office of the Secretary of Defense and the 
Military Departments do likewise.
    Question. What background and expertise do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, this will be my third senior position in the 
Department of Defense and the second one that requires confirmation by 
the Senate. I served as Deputy Assistant Secretary of Defense for 
Regional Programs from 1977-1980 and as Under Secretary of Defense for 
Policy from 1989-1993. This latter position covered a period of time 
that included the end of the Cold War, the revision of our national 
strategy, and the planning for and conduct of major military operations 
in Panama and the Persian Gulf region. In addition to these positions, 
I have held senior management positions as Assistant Secretary of State 
for East Asian and Pacific Affairs, and served as U.S. Ambassador to 
Indonesia, running one of the most important U.S. embassies in Asia. 
Finally, for the last 7 years I have managed a school of international 
affairs that entailed the development of fiscal and academic programs 
for 750 students on campuses in Washington, D.C.; Nanjing, China; and 
Bologna, Italy. The school is a $30 million per year operation. While 
in the job, I also supervised a team that more than doubled the 
school's endowment.
    Question. Do you believe that there are any steps you need to take 
to enhance your expertise to perform the duties of Deputy Secretary of 
Defense?
    Answer. I believe that I have an excellent, general base of 
experience for this position. Without presuming confirmation, I have 
already begun to benefit from excellent information briefings from the 
SASC Staff, various offices within the Office of the Secretary of 
Defense, and the Joint Staff. Courtesy calls with over a dozen members 
of this committee have been invaluable. I believe if confirmed, I am 
ready to assume the duties of the position of Deputy Secretary of 
Defense, which will remain a learning experience, as long as I hold the 
office.
               budgetary impact of contingency operations
    Question. Over the past several years, military units have been 
increasingly deployed to contingency operations around the world. While 
participation in these operations may improve discipline, unit cohesion 
and leadership skills that are not generally possible to develop during 
normal garrison activities, they disrupt operating budgets, cause lost 
training opportunities, and accelerate wear and tear on equipment. 
Additionally, increased OPTEMPO impacts quality of life and could 
jeopardize retention of high-quality people. Finally, unless funded 
through timely emergency supplemental appropriations, they divert funds 
from programs designed for needed readiness or modernization.
    Do you have any ideas as to how to reduce the impact of these 
operations on both near and long-term readiness and modernization 
programs?
    Answer. Near term, contingency operations--regardless of their 
intrinsic merits--can damage readiness by interrupting needed training 
for wartime operations, accelerating wear and tear on equipment, and 
eroding the quality of life of military personnel and their families. 
However, that damage can be minimized through careful management, and 
whatever damage is unavoidable can sometimes be offset by benefits to 
the units participating in these operations. Key to avoiding damage is 
robust funding for readiness accounts, so that readiness needs can be 
met before, during, and after contingency operations. Looking long-
term, damage to modernization programs is best prevented by timely 
funding so that the Department does not have to disrupt procurement and 
RDT&E programs. Especially key is accurate DOD projections of 
operational costs and timely congressional approval of supplemental 
appropriations that are needed for unbudgeted contingency operations.
                     preparation for future threats
    Question. We have heard a great deal recently about the fact that 
Russia no longer poses the threat to U.S. interests that the Soviet 
Union and the Warsaw Pact once did. Because of this, many argue that we 
can continue to cut back on defense spending and force structure beyond 
that which we have already achieved. Recognizing the need for a 
comprehensive examination of our national security requirements, 
Congress passed legislation last year that would make permanent the 
requirement for the Department of Defense to conduct the Quadrennial 
Defense Review (QDR). As a result of the last QDR, the Department 
recommended a reduction in military personnel levels despite the 
recognition that we will continue to engage in numerous peacekeeping 
activities. This, in part, led the National Defense Panel to state that 
``there is insufficient connectivity between the strategy on the one 
hand, and force structure, operational concepts, and procurement 
decisions on the other.''
    Do you believe that the Two Major Theater War scenario continues to 
be the most appropriate basis for determining force structure, 
operational concepts and procurement decisions for U.S. armed forces?
    Answer. Modern history suggests that the United States has often 
faced more than one security contingency at a time. With that history 
in mind, preparations are appropriate. The increasing diversification 
of current and emerging threats requires that we build forces and 
operational concepts aimed at fashioning a new approach to deterrence. 
The manner in which the United States underwrites deterrence--for 
example, how we posture our military to be able to respond to multiple 
contingencies--is an issue of military strategy and operations and the 
adequacy of available resources at the time. This issue will be 
examined in the strategic review.
    Question. Do you believe that the force structure, operational 
concepts, and procurement decisions recommended by the QDR are 
sufficient to provide the capability to engage in overlapping Major 
Theater Wars today, and to prepare for the potential military threats 
of the future?
    Answer. It is important that we shape and prepare the armed forces 
to respond to whatever national security challenges may confront us. We 
must ensure that the military has the tools it needs to fight and win, 
should that be necessary. The technological revolution makes possible 
new forces and concepts of operations that can transform the way we 
fight in the future. These matters will be among those examined in the 
strategic review.
    Question. What are the principal threats to U.S. vital national 
security interests that you believe the Department should examine both 
in the near and long term?
    Answer. The centrifugal forces in world politics have created a 
more diverse and less predictable set of potential adversaries, whose 
aspirations for regional influence and whose willingness to use 
military force will produce challenges to important U.S. interests and 
to those of our friends and allies. Modern technology and its 
proliferation also confront us with an expansion of unconventional 
threats, including nuclear, biological, and chemical (NBC) weapons, 
missiles, terrorism, and the newer threats against space assets and 
information systems. At the same time, we have traditional 
responsibilities to existing allies in key strategic theaters that 
remain in our vital interests.
    Question. Would you agree that the uncertainty which we face in the 
future requires us to maintain a military which is both strong and 
flexible?
    Answer. In addition to fielding strong, flexible military forces 
for an uncertain future, the United States can help build a new 
national security environment by integrating the economic, 
technological, and diplomatic tools at our disposal, maintaining and 
strengthening our alliances, and promoting continued market and 
democratic reforms around the world. By providing for a military that 
is second-to-none and equipped to meet the newer challenges of the 21st 
century, I believe we can best ensure a peaceful strategic environment 
that advances U.S. national security interests and those of our friends 
and allies. The goal is to assure that our country has the new 
capabilities necessary to deter and defend in this new security 
environment so we are able to contribute to lasting peace and 
stability.
                          readiness indicators
    Question. Over the past several years, the committee has observed 
discrepancies between the readiness reports we receive from the 
Pentagon and the information we receive from the operational forces. 
Many of these discrepancies are attributed to a readiness reporting 
system including the SORTS data which is designed to provide a snapshot 
of the current state of readiness rather than a projection of the 
future.
    If confirmed as the Deputy Secretary of Defense, will you work with 
the Services to try to develop a better system of measuring and 
reporting readiness, including a way to predict future readiness, so 
that we have an adequate understanding of any readiness problems within 
the operational forces?
    Answer. At its core, our readiness reporting system centers on the 
readiness of our forces for high intensity combat operations. While the 
current system is useful, I know that it can be improved, and I support 
efforts to do so. The basic position as developed in this committee and 
others and as outlined by President Bush remains clear: we have an 
urgent need to address any decline in operational readiness.
                             plan colombia
    Question. The United States is heavily involved in resourcing and 
training Colombian security forces that are fighting the growth and 
processing of coca leaves and the transport of refined cocaine. U.S. 
forces are specifically precluded, by policy, from taking a direct part 
in any such operations.
    Do you favor continuing U.S. support for Colombian security forces 
in this effort?
    Answer. The Department's counterdrug programs and policies are 
currently under review. This is a process in which I will participate 
if confirmed. At this point, however, it would be premature on my part 
to comment on this review until it is completed.
    Question. Are you committed to maintaining the policy that 
precludes U.S. forces from taking a direct part in these operations?
    Answer. As with all other Department policies, if confirmed I will 
reserve the right to review the existing policy and make my 
recommendations to the Secretary. However, in principle, I support the 
policy which prohibits DOD personnel from accompanying drug law 
enforcement and foreign military forces on counterdrug field 
operations.
    Question. Would you favor increasing U.S. assistance to the 
countries bordering Columbia to prevent a relocation of coca growth 
elsewhere?
    Answer. U.S. counterdrug policy relative to programs in the region 
is currently under review within the interagency, to include the 
Department of Defense. It would be premature on my part to speculate on 
the outcome of these reviews.
                     maintaining our infrastructure
    Question. The Department of Defense maintains the world's largest 
infrastructure, with a physical plant value exceeding $500 million. It 
is widely acknowledged that much of this infrastructure is in poor 
condition and therefore impacts quality of life and readiness.
    What are the most critical infrastructure issues facing the 
Department of Defense?
    Answer. Our physical plant is too big, too old, and too often in 
poor condition. The Department faces the daunting task of rationalizing 
its infrastructure and finding the resources to properly sustain, 
restore and modernize the facilities and installations we will keep. 
Improving the quality of life and workplaces for our servicemembers and 
their families is critical to readiness and retention. The Department 
believes that it has excess facility capacity and infrastructure in the 
wrong locations. We will address these issues during our planned review 
and the months thereafter.
    Question. The Military Housing Privatization Initiative was enacted 
to provide a means for solving the military services' housing crisis.
    Has the initiative lived up to its expectations? If not, what 
actions would you advocate to assure the success of the program?
    Answer. The Military Housing Privatization Initiative was slow to 
start, but with nine projects now awarded, it has demonstrated that it 
is a powerful and important tool to solve our housing shortfall. 
Enthusiasm is high in the Military Services to do more, but the success 
of the program depends on capturing lessons learned at the initial 
projects and applying them as we move forward.
                         defense health funding
    Question. As you are aware from your current position, the 
Department of Defense has identified a core program shortfall in the 
Defense Health Program of $6 billion from fiscal year 2002-2005. These 
figures do not include any expansion of the Department's capabilities 
or resources to meet the commitment to the over 65 military retiree 
population and their families.
    If confirmed as Deputy Secretary of Defense, how do you plan to 
address this shortfall?
    Answer. Addressing this or any other major program funding 
shortfall will be our task once the DOD strategic review is completed 
and used to set guidelines for future spending. Additionally, however, 
we will be scrutinizing processes and management--including those in 
the Defense Health Program--to make improvements, increase efficiency, 
and save money.
                    aviation modernization programs
    Question. In a recent presentation, the Air Force Chief of Staff 
stated that if all of our current aviation modernization programs 
execute as planned, in 15 years the average age of aircraft in the 
inventory will be 30 years. Specifically there has been much 
speculation that the current tactical aviation modernization plan is 
not affordable.
    Is this a viable program?
    Answer. The requirements and timing of the tactical fighter 
programs are subjects in the on-going review which Secretary Rumsfeld 
has initiated. Although a major investment, the modernization of U.S. 
tactical fighters is of immense importance and deserves careful review.
    Question. With the cost of individual platforms escalating, will we 
ever be able to rejuvenate our fleet of aircraft without a significant 
increase in our modernization budgets?
    Answer. Given the aging of the current fighter force structure, 
replacement aircraft must be procured. Once the review is complete, we 
will be in a position to address the budget necessary to satisfy the 
required future force structure.
    Question. How do you expect the development of unmanned aerial 
vehicles to impact our requirements for manned platforms over this 
period?
    Answer. Our unmanned aerial vehicles have demonstrated their value 
as intelligence, surveillance, and reconnaissance assets. As the 
quantity and capability of these unmanned systems increase, we expect 
them to pick up more of these roles, complementing our heavily tasked, 
manned intelligence surveillance and reconnaissance fleet. We also have 
technology programs to begin to develop combat roles for unmanned 
aerial vehicles. If the technologies prove successful, these unmanned 
systems will complement our manned combat fleet.
                               readiness
    Question. Over the last few years we have seen increasing evidence 
that the readiness of the U.S. Armed Forces has begun to deteriorate as 
a result of the over-commitment of an under-resourced Department of 
Defense. Whether you look at the comments of Army Training and Doctrine 
Command commanders, the testimony of the Service Chiefs, or reports of 
severe shortages aboard deployed naval vessels, all point to a pending 
readiness crisis. Many have argued that we are approaching a readiness 
death spiral where maintaining today's aging equipment and facilities 
is preventing the modernization necessary to maintain readiness in the 
future.
    What do you view as the major readiness challenges that will have 
to be addressed by the Bush administration, and, if confirmed, how will 
you approach these issues?
    Answer. Our new administration faces a number of readiness 
challenges across the military. These include the classic ``unit 
readiness'' concerns of robust manning, functioning equipment, and 
realistic training so that our military is prepared to defend the vital 
national interests of the United States. Our war fighting commanders 
around the world must have the assets to synchronize and use their 
units in effective joint and coalition forces. This ``joint readiness'' 
requires effective command, control, communications, and computer 
(C\4\) systems; robust intelligence, surveillance, and reconnaissance 
(ISR) systems; sufficient lift to mobilize forces and equipment; 
interoperability; and healthy logistics practices and sustainment 
stocks. I believe that the U.S. also needs to be better prepared for 
the growing threats posed by terrorism, weapons of mass destruction 
(WMD), threats to critical information and other infrastructure 
systems, and vulnerable space assets. Some of the more pressing 
concerns lie in the condition of equipment, or more broadly, the 
materiel readiness of the forces. Of particular concern is the 
readiness of our aviation forces. They continue to struggle to overcome 
the ill effects of higher-than-planned use and inadequate parts support 
that have accrued since the end of the Cold War. While increased 
funding in the past 2 years has had some positive effect on materiel 
readiness, there is more work to be done. DOD's equipment is growing 
older, and we will be continually challenged to keep our existing 
forces ready while preparing for the threats of the future. Our 
National Guard and Reserve Forces also have a number of unique 
challenges in meeting their mission requirements upon deployment that 
require our immediate attention. As we undertake a thorough review of 
the National Military Strategy, we will address these concerns.
               readiness supplemental funding requirement
    Question. The military services have provided this committee with a 
list of $4.5 billion in near-term readiness requirements, such as spare 
parts and equipment maintenance, and another $2.5 billion for emergency 
personnel and modernization programs, that they have identified for 
this fiscal year.
    Have you taken a look at the military services fiscal year 2001 
emergency requirements and will the administration submit a 
supplemental budget request to fund these items?
    Answer. I have not studied in detail the service's unfunded fiscal 
year 2001 requirements. The administration's position is that DOD's 
strategic review must be completed before any decision on submitting an 
fiscal year 2001 supplemental appropriations request is made.
                                vieques
    Question. Over the past 18 months Naval forces deploying from the 
east coast of the United States have been prevented from conducting 
live-fire training on the Navy's training range on Vieques, Puerto 
Rico, which has had a significant impact on the readiness of these 
forces to execute their wartime missions. An agreement was reached with 
the then-Governor of Puerto Rico, and legislation passed to implement 
that agreement, which will provide economic incentives to the people of 
Vieques in return for their cooperation in the restoration of live-fire 
training. Unfortunately, the current Governor has stated that she will 
not abide by the terms of this agreement and that she will insist the 
Navy cease operations immediately.
    If confirmed, what actions will you take to achieve the restoration 
of live-fire training on Vieques?
    Answer. It is my understanding that Vieques is a superior site for 
rehearsing amphibious operations, the only site currently used for 
aerial mine warfare training, and is the only location currently 
available on the east coast where aircraft, naval surface ships, and 
ground forces can employ combined arms training with live ammunition 
under realistic conditions. It is also the only range currently 
available on the east coast that allows the Navy and Marine Corps to 
conduct naval gunfire training. I understand that to date no 
alternative sites, providing the ability to conduct combined arms 
training with live ammunition under realistic conditions, have been 
located. If confirmed, I will work with Secretary Rumsfeld and the 
Department of the Navy to explore all possible options for solutions 
that best meet the national interest.
                  outsourcing of commercial activities
    Question. Do you believe that the military services need to retain 
a core capability to perform certain activities such as equipment 
maintenance, and what approach you take to allocate workloads between 
the public and private sector?
    Answer. The size and composition of DOD's facilities to perform 
equipment maintenance is an important aspect of the overall readiness 
of the Armed Forces. The appropriate balance between government and 
private sector facilities must be struck in a manner that assures the 
equipment employed by the Armed Forces will be ready for use when 
needed. This balance in turn will be affected over time by the nature 
of the technology used in military equipment. A balance will be 
reviewed to assure that capabilities essential to national defense that 
cannot reliably be provided by the private sector will be provided by 
the government sector. Moreover, critical capabilities will be 
maintained in the government sector.
    Question. Do you believe that significant savings can be achieved 
through outsourcing, and if so, do you have any data that would be 
applicable to those activities which you would outsource?
    Answer. I believe significant savings can be achieved by competing 
the Department's non-core activities with the private sector. While 
there has been some debate over the actual magnitude of the savings, 
recent studies have all agreed that savings are substantial. I believe 
specific functions should be identified for study where the most 
potential for savings and efficiency improvement exists. For example, 
past studies indicate base operating support functions achieve above 
average savings. I would review all functional areas to identify and 
target those commercial activities that offer the most promise for 
competition with the private sector.
      commercial vs. military requirements for frequency spectrum
    Question. If confirmed, what actions will you take to review the 
Department's total spectrum requirements and ensure that new systems 
are designed to ensure efficient spectrum utilization by the Department 
of Defense?
    Answer. I understand the Department has reviewed its current and 
long-term electromagnetic spectrum needs, and will continue to re-
assess these regularly. The Department has also revised its acquisition 
regulations to mandate more stringent procedures for determining and 
validating, prior to production decision, the requirements for and 
availability of spectrum for all equipment and systems to be utilized 
by the Department. If confirmed, I plan to support these efforts and 
ensure that the Department continues to investigate new technologies 
for the more efficient use of the electromagnetic spectrum such as 
software programmable radio technology.
    Question. If confirmed, what actions will you take if the study 
currently being conducted within the Department of Defense determines 
that there will be a significant cost and operational impact if the 
military services surrender the 1755--1850 MHz band of frequencies?
    Answer. If confirmed, I will need to be thoroughly briefed on the 
study to fully appreciate its findings. The Department will continue to 
work closely with the National Telecommunication and Information 
Administration and the Federal Communications Commission in determining 
the best decision for the Nation, balancing national security and 
economic development, in identifying spectrum for the next generation 
of wireless systems while understanding that the Department's readiness 
must not be comprised. I know that Secretary Rumsfeld assigns a very 
high priority to this. I would also like to acknowledge the tremendous 
support the Department has received from this committee in supporting 
the Department's assured access to the electromagnetic spectrum.
                      base realignment and closure
    Question. The previous administration insisted that another round 
of base closures was needed to streamline the defense budget and to 
shift resources into personnel programs and weapons procurement. 
However, when asked if in the absence of an additional base closure 
round they would provide, for congressional consideration, a list of 
those facilities that they consider excess and eligible for closure, 
they have been unable, or unwilling, to do so.
    Do you believe that we have excess defense facilities and, if so, 
where does this excess capacity exist?
    Answer. See response below.
    Question. Would you recommend additional rounds of base closures?
    Answer. See response below.
    Question. Would you provide a list of those facilities for 
congressional consideration absent the authorization of another round 
of base closure?
    Answer. See response below.
    Question. Would you support another round of BRAC but limited to 
where excess capacity exists?
    Answer. As Secretary Rumsfeld noted in his response to Advance 
Policy Questions from this committee, we will withhold an assessment of 
this issue until after the completion of the defense review.
                           policy toward iraq
    Question. Ten years after the successful conclusion of Operation 
Desert Storm, tens of thousands of U.S. troops remain in the Persian 
Gulf region--at a cost of $1 billion per year--to enforce the current 
U.S. policy of containing Saddam Hussein. Despite our efforts, Saddam 
remains in power in Iraq, his weapons programs unchecked; the 
international coalition that repelled him from Kuwait has virtually 
collapsed; and our friends and allies in Europe and the Gulf region are 
reestablishing diplomatic ties with Iraq.
    What steps do you think the United States should take to 
reinvigorate the international community's efforts to ensure Iraqi 
compliance with the obligations Iraq accepted at the end of the Gulf 
War--particularly those obligations related to disarmament?
    Answer. The administration is in the process of reviewing all the 
elements of U.S. policy toward Iraq. This review will have to address 
whether more can be done to secure Baghdad's compliance with the 
conditions laid down by the United Nations, particularly its obligation 
to foreswear the pursuit of weapons of mass destruction. It will also 
have to address the complex task of rebuilding support for an effective 
policy in the region and in the international community.
    Question. What role do you believe the Iraqi opposition can play in 
these efforts?
    Answer. This is an issue that the Iraq policy review now underway 
will have to address. It would be inappropriate for me to comment on it 
at this time.
    Question. Do you believe that sanctions are an effective tool 
against Saddam Hussein?
    Answer. Sanctions can be a part of an effective policy, but they 
are not a substitute for a policy. The administration is reviewing 
whether any adjustments are needed in the U.S. approach to 
administering the sanctions. It is important to remember that the focus 
of the sanctions is not the Iraqi people but preventing Saddam Hussein 
from developing and using weapons of mass destruction against his own 
people or his neighbors, as he has done before.
                    u.s. military presence in bosnia
    Question. Last December marked the 5-year anniversary of the NATO 
military presence in Bosnia. Although reduced from its early high of 
about 60,000 troops, the international community, under NATO 
leadership, today maintains a force of over 20,000 troops in Bosnia, 
almost 4,600 of whom are American. Despite over 5 years of an 
international military presence in Bosnia, we are far from achieving 
the goal of a unified, multi-ethnic nation, as envisioned in the Dayton 
Accords which ended the war. In fact, during the most recent nation-
wide elections in Bosnia, the Nationalists--those who oppose the aims 
of Dayton--made surprising gains.
    What should the United States do to break the stalemate in Bosnia 
and help create the conditions for the withdrawal of U.S. troops?
    Answer. NATO is currently assessing options. It would be 
inappropriate for me to comment further.
    Question. Should we consider a renegotiation of the Dayton Accords?
    Answer. Dayton has served the central purpose of stopping the war. 
The Dayton Accords include procedures for making changes. Whether any 
changes are made is ultimately a matter for the Bosnians themselves to 
decide.
                              north korea
    Question. What is your view of the agreed framework between the 
United States and North Korea?
    Answer. The Agreed Framework is one element of an overall effort by 
the U.S. and its democratic allies, the Republic of Korea and Japan, to 
prevent war and reduce the level of confrontation on the Korean 
Peninsula. It is important to remember that their overall problem is 
not only a nuclear one but also involves a large North Korean 
conventional military threat and a long record of North Korean 
hostility toward the South. The historic summit between Kim Dae-Jung 
and Kim Jong-Il is a significant positive step, but we need to proceed 
with caution. We also need to make sure that North Korea honors its 
commitments as we live up to ours.
    Question. What steps can the United States take to reduce the risks 
from North Korea's weapons proliferation activities?
    Answer. The risks posed by North Korea fall in three areas: the 
potential to build an ICBM capable of hitting U.S. territory; the 
continued domestic deployment of missiles that put our allies at risk; 
and the export of long-range missiles and missile technology to world 
trouble spots that heighten regional tensions. The administration is 
committed to the deployment of an effective national missile defense as 
soon as it is technologically feasible. Given the widespread deployment 
of North Korean derived theater range ballistic missiles and the threat 
those missiles pose to deployed U.S. forces as well as our friends and 
allies, the administration would attach a high priority to the 
development and deployment of effective theater missile defense systems 
in a timely and efficient manner. It is in the U.S. interest that the 
North Koreans terminate their programs and stop exporting missile 
technology to other countries. The administration will pursue that 
objective--the precise means would likely be determined following a 
review of U.S. policy toward North Korea and its proliferation 
policies.
                                 africa
    Question. The Defense Department is currently involved in a number 
of initiatives in Africa to help certain nations be better prepared to 
provide their own regional peacekeeping forces and humanitarian 
missions. The African Crisis Response Initiative and the ongoing 
training of several Nigerian army battalions for peacekeeping duty in 
Sierra Leone are two examples of this policy.
    Do you support such initiatives which are aimed at helping African 
nations be better prepared to respond to a regional crisis?
    Answer. Yes. The current strategy to develop peace operations and 
humanitarian response capacity in Sub-Saharan Africa includes two key 
objectives: to develop defense partnerships with important states, and 
to actively engage sub-regional organizations. One of these important 
states is Nigeria, with whom the U.S. is currently implementing peace 
operations training in support of UNAMSIL in Sierra Leone (Operation 
Focus Relief, or OFR).
                            export controls
    Question. The domestic satellite industry has complained that it 
has lost a significant amount of market share, and billions of dollars, 
as a result of the satellite licensing provisions that were enacted as 
part of the National Defense Authorization Act for Fiscal Year 1999.
    What is your view of these complaints?
    Answer. Let me start by saying that the satellite industry is an 
important industry for national defense. We must ensure that government 
processes are not unnecessarily impeding legitimate exports of 
satellites that provide the critical revenues for the industry to 
continue to invest in advancing the state of the art. The satellite 
industry itself has released information suggesting that competitive 
pressures facing the industry are the result of a number of factors 
including launch failures, competition from land-based communications 
systems, and growing capabilities of foreign suppliers. All of these 
factors must be reviewed in the course of establishing an appropriate 
policy on the export of satellites. National security must always be of 
paramount consideration.
    Question. Do you believe that Congress should revisit the issue of 
how we license exports of satellite technology?
    Answer. I believe that the administration will be examining this 
issue carefully (including any statutory or regulatory changes that 
might be required), and will consult closely with Congress as this 
review proceeds. Any review must be undertaken in a manner that 
preserves fundamental national security interests.
    Question. Over the past 2 years, 16 ambassadors from NATO countries 
have written to the Secretary of State expressing their deep 
frustration with the U.S. export control system. Deputy Secretary of 
Defense Hamre initiated an effort to streamline export control process 
without weakening controls. What is your view of Secretary Hamre's 
reforms?
    Do you believe that further streamlining is required?
    Answer. The administration will be reviewing this issue.
    Question. What policies and procedures do you believe need to be 
changed in the export license control process that would reflect the 
right balance between national security and commercial interests?
    Answer. Exports of sensitive high technology affect U.S. national 
security interests in many ways. First, we must protect our military 
personnel and our security interests by ensuring that sensitive 
technologies are not exported to potential adversaries or to foreign 
entities that represent a significant diversion risk. Second, we must 
have sensible and effective policies and procedures to ensure that 
appropriate transfers of military and commercial systems and 
technologies that support our coalition warfighting objectives are 
permitted. Finally, we must be mindful that the U.S. is not the only 
country with advanced military and commercial technology. Efforts to 
control exports can sometimes become counterproductive if they weaken 
American technical capacity without protecting truly critical 
technologies. Thus, we need to work aggressively with our allies and 
friends to ensure that our policies and approaches toward the export of 
such technologies meet our mutual security interests. The Department of 
Defense has an essential role to play in designing export control 
policies and implementing the principles I have outlined. We will be 
working closely with Congress and the other Executive Departments on 
these important matters.
    Question. Do you believe the Department of Defense should play a 
greater role in the export licensing process than it currently does in 
determining whether sensitive technologies should be exported overseas?
    Answer. The Defense Department must play a strong role in the 
export control policy process. Defense has a tremendous amount of 
technical expertise in the export control area and should have the 
ability to apply these assets to the overall export control process. I 
will be reviewing whether there are specific changes that should be 
proposed concerning DOD participation in these processes.
    Question. What critical military technologies do you believe the 
United States should not license for export overseas and why?
    Answer. There are obviously a number of critical military and dual-
use systems and technologies that must be export controlled to preserve 
U.S. military technological advantages and to ensure that these items 
do not fall into the wrong hands. This is a changing picture as 
military capabilities advance and technology become diffuse worldwide. 
We must ensure that we have a system in place that regularly reviews 
the specifics to make sure that we are controlling the most important 
items and that we are not controlling items that cannot be effectively 
controlled because of widespread availability.
    Question. Senator Gramm recently reintroduced his bill to 
reauthorize the Export Administration Act. Senator Gramm has 
characterized his bill as an effort to build a higher fence around a 
smaller number of items, the export of which would have a detrimental 
impact on our national security. Others have expressed concern that the 
bill does not pay sufficient attention to national security concerns.
    What is your view of Senator Gramm's bill?
    Answer. I have not studied the bill but will do so as soon as 
possible.
    Question. Do you support the reauthorization of the Export 
Administration Act?
    Answer. It is my understanding that the administration is in the 
process of reviewing the bill and will have some comments soon.
                technological capabilities of terrorists
    Question. A key disadvantage of the proliferation of information 
technology is that potential and acknowledged adversaries can now 
gather data, imagery, and intelligence updates from many of the same 
sources and means that the U.S. military uses. Keeping a step ahead of 
these capabilities is a great concern for this committee.
    What would you propose the Department of Defense do to address this 
concern?
    Answer. While greater access to multiple sources of data has many 
advantages for the U.S., it is also true that our adversaries can use 
commercial imagery and other burgeoning information technologies to 
monitor and target U.S. interests. While we cannot prevent commercial 
capabilities from becoming more sophisticated and widespread, we do 
have the ability, with the proper blend of resources, personnel and 
processes, to enhance the likelihood that the U.S. will continue to 
maintain the information advantage it needs. Furthermore, the control 
of certain technologies remains an issue of significant concern to the 
Department. We will continue to review each export license request and 
appropriately apply conditions and provisos to those licenses to 
protect our national security interests. The Secretary has made it 
clear that information superiority is one of his top priorities. If 
confirmed, I intend to fully support these efforts.
    Question. According to the Department of Defense's most recent 
annual report to Congress entitled ``Worldwide NBC Weapons and Missile 
Threat'', ``technology to improve the delivery of nuclear, biological, 
and chemical weapons is becoming more advanced and in some cases more 
available. Some countries are focused on the production of better 
missile guidance and control mechanisms and countermeasures to defeat 
ballistic missile defense systems.''
    What options should the Department of Defense pursue to address the 
threat posed by this growing capability?
    Answer. The Department of Defense needs to continue to support U.S. 
Government nonproliferation efforts intended to prevent or reverse the 
proliferation of nuclear, chemical, and biological weapons, their means 
of delivery, and associated technologies. It needs to press ahead with 
its counterproliferation programs to ensure that U.S. forces are 
prepared to fight and win in chemical and biological weapons 
environments. It must develop and deploy missile defenses that are 
effective against current and emerging ballistic missile threats. We 
also must strive to build stronger international non-proliferation 
regimes and simultaneously look for opportunities for cooperative 
programs with like-minded Defense Ministries.
                   cooperative threat reduction (ctr)
    Question. Last month Secretary Rumsfeld told the committee that 
``we need to be aware of the fact that Russia, in particular, claims to 
lack the financial resources to eliminate weapons of mass destruction, 
but continues to invest scarce resources in the development of newer, 
more sophisticated ICBMs and other weapons. We would not want the U.S. 
investment in the [DOD] CTR program to become the means by which Russia 
frees up resources to finance its military modernization programs. A 
review of ongoing [DOD] CTR projects and their respective national 
security benefits would be appropriate.''
    What are the most important factors that should be considered 
during this review?
    Answer. The most important factor for this review should be the 
extent to which the assistance provided to the eligible states of the 
former Soviet Union enhances the security of the United States. Each 
eligible state is unique and that will also be an important 
consideration. Russia is the only eligible state that is permitted by 
international treaty to retain and modernize its nuclear forces. 
Therefore, an important factor for review should be whether the 
Department's CTR program is structured to prevent support for Russian 
military modernization programs.
    Question. Do you agree that the CTR program serves the U.S. 
national interests by reducing the threat from former Soviet weapons of 
mass destruction?
    Answer. Certainly the elimination of former Soviet strategic and 
tactical nuclear weapons and their delivery vehicles that the CTR 
program has funded has benefited U.S. national security. As the 
previous answer indicates, we need to monitor the details of 
implementation to insure that those purposes continue to be achieved.
                           reserve components
    Question. Although the Department of Defense is committed to the 
``Total Force,'' as recently demonstrated by the deployment of the 49th 
Armored Division of the Texas Army National Guard to Bosnia, there is 
concern among the Reserve community that this commitment to the ``Total 
Force'' is only ``lip service.'' Those who question the Department's 
support of the Reserve components point out the Reserves do not receive 
an appropriate share of the defense budget for modernization and 
military construction. A specific issue was that the fiscal year 2000 
military construction program. While the request for the National Guard 
amounted to about 3 percent of its critical needs, the active-component 
funding request covered nearly 20 percent of their critical needs.
    What role should our Reserve components have in the post-Cold War 
era?
    Answer. Over the last several years, the National Guard and 
Reserves have been transformed from a Cold War force held in Reserve to 
an essential force serving in the ``front lines'' daily. For example, 
during each of the past 5 years, Reserve component personnel have 
performed between 12.5 and 13.5 million workdays per year supporting 
the active force. The Total Force Policy is now a fundamental principle 
guiding the restructuring and reorientation of our Nation's military 
forces. At the same time, though, we must be careful not to place too 
much of the burden of our national security objectives on the Guard and 
Reserve. These are immensely capable forces that play a critical but 
well-defined role in our force structure. As such, the role of our 
Reserve components will be examined, along with our other Armed Forces, 
during the review of the overall defense strategy.
    Question. Do you believe the Reserve components are fully 
integrated into the ``Total Force?'' If not, what further steps should 
be taken to make the integration a reality?
    Answer. The integration of the Reserve components has improved 
steadily. Although barriers to full integration into the Total Force 
have been reduced or eliminated, work remains. For example, quality of 
life programs are needed to recruit and retain Reserve component 
forces. We need to work together to address employers' concerns and 
provide family support programs.
    Question. What should be the basis for level of funding in the 
administration's budget request for the Reserve components?
    Answer. Keeping the required force trained and ready remains our 
top priority. The basis for the level of funding for the Reserve 
components in the administration's budget request should be based on 
the readiness requirements placed on the Reserve components by the 
National Military Strategy, the ongoing strategic review being 
undertaken by Secretary Rumsfeld at the President's direction, the 
fiscal year 2001 QDR, and other missions assigned by the Services. The 
Reserve components should then be resourced to ensure interoperability 
to meet the requirements identified by those mandates.
    Question. Due to the leaner Active Duty military and greater number 
of operational commitments, the Department of Defense has increasingly 
called on the Reserves and National Guard. In 1989, reservists and 
members of the Guard recorded one million days of duty. In each of the 
past 3 years, that figure has averaged 13 million days. This increased 
workload has had an impact on the individual reservist and on his 
civilian employer. As a result, retention and recruiting are impacted 
and in extreme cases the relationship between the reservist and his 
employer.
    In your judgement, is it realistic to expect the Reserve components 
to assume an increasing role in operational deployments and in the 
``Total Force'' without adverse impact on their civilian jobs?
    Answer. The Reserve Forces are a major and integral part of our 
National Defense team. The key to their effective use is maintaining 
the proper balance of utilizing their capabilities without overusing 
any specific segment of the force. We will endeavor to seek a level of 
participation for our reservists that maximizes the investments made in 
their training and equipping while mediating the potential for 
inadvertent harm done by their overuse.
    Question. What can the Department do to mitigate the impact of 
increasing Reserve deployments on the civilian employers?
    Answer. The key to mitigating the impact of Reserve component 
deployments on civilian employers is early notification, a predictable 
return of the Reserve component member, and not calling upon the same 
individual too often. We will continue to improve our ability to return 
reservists from deployments when they are scheduled to return. Work 
needs to be done to ensure that the force structure contains sufficient 
high demand units so the same reservists are not used too frequently.
    Question. The Reserve components represent a great asset to our 
Nation as they support the National military strategy while also 
serving to link our military forces to hometown populations where they 
serve. These forces also provide state governments with a critical 
ability to respond to natural disasters and are available to be the 
first responders to homeland defense mission requirements. 
Unfortunately, a significant portion of these forces appear to be 
improperly structured as there are a number of medium and heavy 
divisions in the Reserve components that have not been required or 
assigned to support warfighting requirements. These forces are 
similarly not equipped to properly support state missions. Tanks and 
mechanized infantry units are of little utility to governors who need 
these forces to respond to natural disasters. Modernizing these forces 
with combat support and combat service support equipment appears to be 
the most appropriate course to follow but would require Department of 
Defense oversight and a significant investment in resources.
    How do you believe this issue should be addressed and what will you 
do to restructure our Reserve components to be in a better position to 
support both Federal and state mission requirements?
    Answer. The National Guard and Reserve Forces play an essential 
role within today's force in supporting the day-to-day operations, at 
home and abroad. It is also my understanding that today's Guard and 
Reserve Force structure provides a significant portion of the Total 
Force's combat support/combat service support capability, which 
coincidentally, is also likely to be needed to help mitigate the 
consequences of a domestic Weapons of Mass Destruction event. While we 
anticipate that the Guard and Reserve will continue to play an 
important role in supporting our homeland security for the reasons you 
have articulated, it is important to note that the President and his 
key national security advisors are in the process of developing a new 
National Security Strategy. The President has already asked the 
Secretary of Defense to be prepared to undertake appropriate actions to 
reshape and restructure our force to meet that strategy. Therefore, it 
would be premature to predict with any precision what changes in 
structure are appropriate at this time.
                       privatization of services
    Question. The Department is relying increasingly on the private 
sector to provide critical services. Among the most significant 
privatization efforts are the areas of military family housing and 
utility systems.
    What are your views on the ever-increasing reliance by the 
Department of Defense on the private sector to provide essential 
services to our military personnel?
    Answer. I believe the Department should seek out private sector 
performance for non-core functions where they are more cost effective 
and efficient.
    Question. If you support additional privatization of defense 
activities, what are they?
    Answer. Following the success of housing and utility privatization, 
other defense activities should be reviewed as possible privatization 
candidates. This is an issue that, if confirmed, I will have to study 
in further detail.
    Question. Although initial privatization efforts have resulted in 
near term savings, there is concern that over the long term there will 
be no savings.
    What are your expectations of the long term benefits from these 
privatization initiatives?
    Answer. All of our privatization efforts require analysis of life 
cycle savings to ensure they benefit the government over the long term. 
My understanding is that analysis of specific competitive sourcing 
competitions indicates that initial savings do, in fact, hold up over 
the life of the contract. In addition to savings, privatization 
supports the rapid infusion of best business practices, and attracts 
private sector capital to augment Department resources.
                           management issues
    Question. During your tenure as Deputy Secretary, what key 
management performance goals do you want to accomplish, and how would 
this committee be able to judge whether you have accomplished them?
    Answer. If confirmed, I plan to work with Secretary Rumsfeld to 
establish key management performance goals. At this point, it would be 
premature for me to offer specific performance initiatives, but in 
general, one of our primary goals should be to hire, support, and 
retain military and civilian personnel with the necessary skills to 
meet our mission needs. As we establish our goals, we must carefully 
consider the results of our ongoing strategic reviews as well as the 
QDR process, and look to closely tie DOD's strategic plans to our 
desired mission outcome. We also need to establish financial management 
operations that provide reliable information and foster accountability. 
Finally, we must look to reform our acquisition processes, establishing 
business practices that are more efficient and effective. I look 
forward to working with this committee and Congress as we strive to 
reduce or eliminate bureaucratic redundancies in the Department of 
Defense and streamline our management practices.
    Question. To successfully lead an organization, a leader must be 
able to create and share a vision that inspires people to follow.
    In your past experience, what specific steps have you taken to 
successfully create a vision for an organization, and how did you make 
sure that the entire organization had a common understanding of the 
mission and was aligned so that it could be accomplished?
    Answer. In previous questions and in many documents supplied to the 
committee, I have outlined my work history and the many organizations 
that I have run. I have always believed that the importance of 
leadership and management jobs is measured not by the title but by the 
results that the whole organization achieves. Perhaps most telling in 
the area of establishing a vision were my positions as Under Secretary 
for Policy, and my work as Dean at the Paul H. Nitze School of Advanced 
International Studies (SAIS), The Johns Hopkins University. In OSD 
Policy from 1989-1993, I redrew the organization, picked new people, 
and held numerous team building sessions to drive home my vision for 
how policy would operate. I don't want to say that my team did it all 
alone. Indeed, working closely with Congress, the Military Departments, 
the Joint Chiefs of Staff, and our allies were integral parts of our 
standard operating procedures. I hope that the results--a new strategy 
and force structure, success in the Gulf War and in Panama, improved 
relations with our allies, highly successful arms control initiatives, 
and a whole set of new defense relationships with former adversaries--
validated my approach. At SAIS, I followed the same organizational 
strategies and was very pleased with the results--we doubled the goal 
for the school's 5-year capital campaign, focused it on the school's 
top priorities and then reached our goal in 2\1/2\ years (eventually 
reaching almost four times the original goal by the end of the 
campaign). Through a combined team effort, we were able to not only 
achieve significant increases in the school's endowment, but also 
created new and up-to-date programs, better faculty, improved 
facilities, and improved communications with the central university 
administration in Baltimore. In both cases, the keys to success were 
setting sensible objectives that could inspire support, clear 
communications, good people, and lots of hard work. I agree strongly 
with someone who once said that good government is a team sport. If 
confirmed by the Senate, that is the spirit I will bring to my duties 
as Deputy Secretary of Defense.
    Question. What steps do you intend to take to accomplish these 
objectives at the Department of Defense?
    Answer. As noted above, it would be premature for me to offer 
specific performance initiatives at this time. If confirmed, I will 
work with Secretary Rumsfeld to establish key management performance 
goals. I look forward to working with this committee and Congress as we 
move ahead.
    Question. The Government Performance and Results Act (GPRA) is 
intended to provide managers with a disciplined approach--developing a 
strategic plan, establishing annual goals, measuring performance, and 
reporting on the results--for improving the performance and internal 
management of an organization.
    What are your views on this law and your experience with it, as 
well as your preliminary ideas on how this law might be implemented?
    Answer. Congress enacted GPRA in 1993 to strengthen performance 
management within the Federal Government. At the time GPRA was enacted, 
most Federal agencies did not routinely use strategic planning or 
performance management to shape resource decisions. DOD was a major 
exception, having relied for more than four decades on the Planning, 
Programming, and Budgeting System (PPBS) to guide program development 
and resource-allocation decisions. The PPBS is well aligned, in 
structure and intent, with the results-oriented mandate of GPRA. 
Instead of introducing a new data reporting or management system to 
implement GPRA, DOD has elected to use GPRA reporting to provide an 
executive-level overview of how the Secretary employs PPBS performance 
objectives to manage the Department's resources.
    Question. Are you familiar with the strategic plan, annual 
performance plans, annual accountability report, and financial 
statements of the Department of Defense?
    Answer. Yes, I'm familiar with these plans and reports, which are 
an important part of communicating the President's and the Secretary's 
priorities to the Department, Congress, and in a larger sense, to the 
American people. GPRA requires each Federal agency to produce a 
strategic plan every 3 years, to submit a performance plan with each 
budget, and to publish a performance report at the end of each budget 
year, summarizing progress in implementing the performance plan. In the 
case of DOD, Congress subsequently passed legislation establishing the 
Report on the Quadrennial Defense Review as DOD's strategic plan. DOD's 
annual performance plans and reports are structured to track progress 
in executing the defense strategy. In the next month or 2, the 
Department will forward its fiscal year 2000 performance report to 
Congress. If confirmed, I will give it close attention.
    Question. What do you consider to be the most important priorities 
and challenges facing DOD as it strives to achieve these management 
goals?
    Answer. Fundamentally, I believe the Department has effective 
processes in place for developing its strategic plan, establishing 
goals and measuring performance, and reporting the results. The 
challenge is to make sure that the substantive results of those 
processes reflect the true needs of U.S. national security in the 21st 
century and that goals are clearly articulated. Overall, the quality of 
the data we use to monitor performance has allowed us to measure and 
report our progress in meeting annual goals. In those cases where data 
is lacking, we are working to improve the underlying data support 
systems. Over the past several years, the Department has worked closely 
with Congress, the General Accounting Office, and the DOD Inspector 
General to enhance the performance of its internal management systems. 
In that process, several challenges have been identified, including the 
effective management of information technology investments and the need 
to streamline and improve the efficiency of financial management 
systems. The Secretary has made the modernization of these financial 
management systems one of his priorities, and I certainly support that 
objective.
    Question. What changes, if any, do you feel might be necessary in 
these plans?
    Answer. With the change of administration, the Department will 
revise its strategic plan and annual performance plans to reflect the 
priorities of President Bush and Secretary Rumsfeld as informed in the 
ongoing strategic reviews. We will continue to work with Congress as we 
present future GPRA strategic plans, performance plans, and performance 
reports to ensure that our GPRA activities reflect a full and effective 
implementation of the law.
    Question. What are your views on the importance and role of 
financial information in managing operations and holding managers 
accountable?
    Answer. These are immensely important. Accurate financial 
information is critical to evaluating outputs, services, costs, 
efficiency, productivity, and other essential management indicators. 
Such information is a vital tool for holding managers accountable.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial information was not routinely 
available for these purposes?
    Answer. I would move decisively to improve the system or get a 
different one that works. It is my understanding that given the 
financial challenges we are facing, systems will need to be replaced 
over time.
    Question. What is your view of the importance and role of internal 
controls (i.e., management controls) in ensuring the reliability of 
financial information?
    Answer. Internal controls are very important. Their most critical 
role is to hold managers accountable for results and the wise use of 
resources. Also, these controls are essential to ensuring the proper 
allocation, disbursement, and accounting of funds and to prevent waste, 
fraud, and abuse.
    Question. How would you determine whether the Department has in 
place the key information management processes required by law, 
including a detailed architecture, an investment control process, and 
appropriate information security plans?
    Answer. If confirmed, I will look to the DOD Chief Information 
Officer to advise the Secretary and me on what information management 
initiatives are currently in place and what additional steps need to be 
taken to ensure that information technology investments are consistent 
with plans, process change requirements, architectures, and other 
information management guidance. I believe that the Department already 
has laid the foundation for a structured and systematic process for 
determining whether the key information management processes required 
by law are in place.
    Question. What role do you envision you would play in managing or 
providing oversight over these processes?
    Answer. As I indicated above, if confirmed I will look to the DOD 
Chief Information Officer to provide guidance for DOD information 
management and to spearhead the coordination of information technology 
activities across the Department. As such, I intend to fully support 
the DOD Chief Information Officer in these and other information 
technology management efforts.
    Question. How would you go about implementing or improving these 
processes?
    Answer. It would be premature for me to make any recommendations 
until I have had more time to study this area. However, if confirmed I 
intend to work closely with the DOD Chief Information Officer and other 
senior leaders in the Department to identify opportunities to improve 
existing information technology and management processes, and to 
achieve those improvements.
    Question. The Government Performance and Results Act (GPRA) 
envisions that agencies will link their human capital planning with 
their strategic and annual plans.
    Can you describe your experience in building and maintaining the 
human capital needed to achieve results (getting the right employees 
for the job and providing the training, structure, incentives, and 
accountability to work effectively)?
    Answer. Attracting the right people, matching ``faces with 
spaces,'' ensuring professional development, and rewarding outstanding 
performance have been essential parts of every management job that I 
have ever held. Indeed, I believe that recruiting the right people for 
the right jobs and motivating them to perform are the most important 
keys to effective management. In government and in the academic world, 
where I have managed medium to large organizations, there are fewer 
tangible incentives to offer for performance and less flexibility to 
hire and fire. That means that one has to pay more attention, not less, 
to how you motivate people and provide as much intangible job 
satisfaction as possible, most importantly by empowering capable 
performers and entrusting them with meaningful responsibilities. Given 
our tight labor market, the Department of Defense's senior leadership 
and personnel managers will have to become more people-centric and 
rethink our incentive structure. If confirmed by the Senate, I pledge 
to make personnel issues--military and civilian--a central concern for 
senior departmental management.
    Question. The DOD workforce has undergone significant downsizing in 
the past several years, and with the current tight labor market, it is 
becoming increasingly difficult to attract and retain talent.
    How would you work to attract and retain individuals with the 
experience, education, and skills needed throughout the Department of 
Defense?
    Answer. The issues facing DOD in recruiting, developing, and 
retaining an excellent civilian workforce require a multi-faceted 
approach. I believe we begin by determining carefully what future 
workforce needs will be. Armed with that information, we need to 
strengthen or put into place the appropriate accession and retention 
strategies, including policies, legislation, and compensation. We also 
need to offer development opportunities, both as key accession and 
retention tools and as insurance that we are growing the cadre of 
leaders and managers necessary to implement our Defense strategy. 
Finally, we must continue to manage the workforce transition 
effectively.
    Question. To become a high-performance organization, an agency 
needs senior leaders who are drivers of continuous improvement.
    What is your approach to motivating career employees to achieve 
excellence?
    Answer. Career civil servants represent the core of operations, as 
they provide the continuity and institutional knowledge that support 
all of our military operations. Therefore, I believe in recognizing 
that value and rewarding excellence. One of the most important things 
is to communicate clearly the importance of the mission and an 
understanding of how their work contributes to the mission. Another way 
of doing so is to provide the education and training necessary to meet 
the increasingly complex mission. If confirmed, I will review existing 
education and training programs to ensure that they give current and 
prospective leaders the tools they need to manage effectively in the 
highly complex Defense environment. I will also make every effort to 
ensure that our career employees are appropriately compensated for all 
they do and would encourage public recognition of excellence.
                         science and technology
    Question. The Department of Defense Science and Technology program 
is at a 20-year low. The Strom Thurmond National Defense Authorization 
Bill for Fiscal Year 1999 established the goal of increasing the budget 
for the defense science and technology program by at least 2 percent 
over inflation for each of the fiscal years 2000 to 2008. This goal has 
not been met in the fiscal year 2000 nor the fiscal year 2001 budget 
request submitted by President Clinton. In President-elect Bush's 
speech at the Citadel he spoke of his support for a strong and stable 
technology base.
    If confirmed, how will you reflect this support in the defense 
budget?
    Answer. One of my goals will be to fund the Science and Technology 
(S&T) program at a level adequate to ensure the technological 
superiority of our armed forces. A downsized military needs a 
technological edge now more than ever. President Bush has committed to 
increasing defense R&D by at least $20 billion between fiscal years 
2001-2006. The S&T accounts should receive a substantial share of this 
increase.
    Question. The defense laboratories are facing a future of continued 
reductions in research and support personnel. This trend, if unchecked, 
could result in a loss of ``critical mass'' in research efforts across 
a number of areas critical to future programs. This situation is 
further complicated by the fact that in the current economy the 
Department is vying with industry for the best and the brightest high 
tech personnel, but is unable to compete on salary and quality of work. 
Finally, the process for hiring can take up to 18 months as opposed to 
direct hiring in industry.
    If confirmed, how will you attract and retain scientists and 
engineers in the Department of Defense?
    Answer. This is an important issue, central to transformation. 
Unfortunately, I do not yet know enough about it to give you a complete 
answer. If confirmed, I will ensure that attracting and retaining 
scientists and engineers is a key priority of the Department of 
Defense.
                             modernization
    Question. Last fall, the Congressional Budget Office estimated that 
if the Department were to execute just the current procurement plans, 
at the rates included in the approved acquisition strategy, that an 
additional $30 billion a year would be required in the procurement 
accounts alone.
    Do you agree that the procurement accounts are not executable 
unless there is an infusion of additional funds?
    Answer. The CBO estimate is based on the assumption that the 
currently approved plans are appropriate. The ongoing defense review 
directed by Secretary Rumsfeld will specify where shortfalls lie and 
what must be done to address those shortfalls. If confirmed, I will 
actively support that review.
    Question. Do you believe that significant changes are needed in the 
Department's current procurement plans?
    Answer. See previous answer.
    Question. If confirmed, how do you intend to address this 
shortfall, if it in fact exists?
    Answer. The aforementioned review of the U.S. national security 
strategy will result in consideration of which capabilities to 
modernize, upgrade or replace with new technology. Properly conducted, 
this process would address the Department's procurement plans.
    Question. Even if all of the current aircraft modernization 
programs execute as planned, the average age of the tactical, 
strategic, and tanker fleet will increase. Aging aircraft require ever-
increasing maintenance, but even with these increasing maintenance 
costs, readiness levels continue to decline.
    How can both the maintenance of the legacy force and the 
modernization efforts be affordable at anywhere near the current budget 
levels?
    Answer. I look at Secretary Rumsfeld's ongoing defense review as 
the first step to addressing these issues. That review should clarify 
the appropriate balance between legacy forces and modernization 
efforts.
                   department of defense organization
    Question. In the 50 years of DOD's existence, there has grown up a 
substantial bureaucracy, much of which duplicates functions in the 
military departments.
    In your opinion, are there areas where functions should be 
centralized in DOD, at the expense of the military departments, or 
should functions be devolved from DOD to those departments? Please give 
examples.
    Answer. Without a more careful internal review, it would be 
premature for me at this point to offer any thoughts on administrative 
restructuring. If confirmed, I will work with Secretary Rumsfeld and 
the Service Secretaries to identify redundancies in our bureaucratic 
infrastructure and to streamline our operations where possible.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Deputy Secretary of Defense?
    Answer. We will need to consider a number of issues in evaluating 
our National Security Strategy and National Military Strategy. Our goal 
is to assure that our country has the new capabilities necessary to 
deter threats and defend our national security interests and contribute 
to peace and stability. This will involve transforming our U.S. 
military into a 21st century force, modernizing the intelligence and 
command, control, and communications infrastructure, and reforming DOD 
structures, processes, and organizations. In addition, our new 
capabilities and readiness must be sustainable. Balancing limited 
resources--even in an atmosphere of projected budget surpluses--is 
always a challenge. Properly outfitting our forces today, while at the 
same time ensuring we sustain robust modernization for the future, will 
be a key challenge for the new administration. Specific quality of life 
issues--such as morale, recruiting and retention, health care and 
benefits--will also be important.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. These issues and others will be considered in the defense 
review and the QDR. Through these reviews, we will examine priorities 
and consider the fiscal implications associated with those priorities.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Department of Defense?
    Answer. As Secretary Rumsfeld has noted, institutional change 
across the board--in the executive branch, the legislative branch, the 
private sector, as well as our allies--will present a great challenge. 
If confirmed, I plan to work with Secretary Rumsfeld to establish key 
management performance goals and to reduce or eliminate bureaucratic 
redundancies in the Department of Defense and streamline our management 
practices.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. It is too early to establish time lines. If confirmed, I 
look forward to working with this committee and Congress as we address 
current problems in the Department of Defense.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Secretary of 
Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                           overseas presence
    1. Senator Thurmond. The United States maintains a significant 
number of forces in forward deployed locations such as Europe and South 
Korea. With the end of the Cold War and ongoing peace initiatives on 
the Korean Peninsula, what is the justification for keeping the large 
number of forces forward deployed?
    Dr. Wolfowitz. Although the Cold War has ended and tensions on the 
Korean Peninsula have begun to lessen, forward-deployed U.S. forces in 
Europe, South Korea, and elsewhere continue to serve a number of vital 
national purposes. Our forces in Europe not only ensure the continuing 
security and stability of this critical region, they are also well 
postured to respond to crises both in Europe and in adjoining regions 
such as the Middle East.
    Despite some lessening of tensions on the Korean Peninsula, North 
Korea remains a significant military threat to South Korea. U.S. forces 
in South Korea and elsewhere in Northeast Asia represent a powerful 
deterrent to North Korean aggression and, should deterrence fail, would 
constitute a critical element of the initial response to that 
aggression. Moreover, as with our forces in Europe, our forces in 
Northeast Asia provide broader benefits. They demonstrate our ongoing 
security commitment to the region, underwrite regional stability, and 
provide rapid response to crises throughout Asia.

                       most significant challenge
    2. Senator Thurmond. Unlike the period of the Cold War, the United 
States Armed Forces are facing the challenges of a world that is 
politically and economically unstable and unpredictable. In view of 
this uncertain future what in your personal views will be the most 
significant challenge facing the U.S. Armed Forces in the next 10 
years?
    Dr. Wolfowitz. The most pressing challenge we face in the next 10 
years will be ensuring our men and women in uniform have the 
wherewithal they need to address the threats of a new security 
environment, in which a more diverse, less predictable set of potential 
adversaries will seek to challenge the strategic interests of the 
United States and of our allies. Maintaining a capable and flexible 
force appropriate for this environment will require us to address 
issues ranging from recruitment and quality of life concerns to the 
expansion of unconventional threats brought by the proliferation of 
modern technology, including nuclear, biological, and chemical (NBC) 
weapons, missiles, terrorism and newer threats against space assets and 
information systems.

                          junior rotc programs
    3. Senator Thurmond. As you may be aware, I am very interested in 
the Junior ROTC program. While the primary purpose of the program is to 
develop good citizens, there are tangible benefits to our Nation's 
Armed Forces. Statistics show that more than 40 percent of the students 
who graduate from the Junior ROTC program choose some form of military 
service.
    Although I have expressed my goal to enhance the program to 
Secretary Rumsfeld, I want to make you aware of my interest in the 
program and would appreciate your views regarding Junior ROTC?
    Dr. Wolfowitz. In his February 21 letter to you, Secretary Rumsfeld 
underscored his support for the Junior ROTC program and reported the 
intent to look into expansion during the Department's forthcoming 
defense review. I agree that JROTC is a great way to improve the 
citizenship of America's high school youth, while helping students and 
faculty better understand and appreciate their armed forces.

                           dod transformation
    4. Senator Thurmond. Our services are undergoing or are planning 
major transformation to meet the challenges posed by threats of 
spreading technologies, increased nationalism, and weapons of mass 
destruction. In your personal view, why has it taken this long to begin 
the transformation and are these changes looking far enough into the 
future to be effective against emerging threats?
    Dr. Wolfowitz. Implementing rapid transformation of the world's 
premier fighting force is difficult absent a compelling case for how 
and why the future security environment demands such change. It is a 
difficult challenge to balance this transformation with our nearer-term 
readiness concerns. As a greater consensus emerges on future security 
challenges, the pace of transformation should accelerate. The means to 
measure progress toward transformation goals are also required in order 
to manage the allocation of resources appropriately. It is our goal to 
achieve a clearer articulation of emerging challenges in the context of 
the current strategy review. The metrics for measuring success should 
follow closely. We must carefully look at process changes that will 
bring new transformed capabilities to the field more rapidly.

                               key issues
    5. Senator Thurmond. Your experience and knowledge regarding the 
Department of Defense and Congress will serve you well during your 
tenure as Deputy Secretary of Defense.
    Based on that experience and on the needs of our Armed Forces, what 
is the one key issue that you would like to resolve before you leave 
office?
    Dr. Wolfowitz. I have no single issue that will animate my work in 
the Department. Rather, I will focus my efforts on helping Secretary 
Rumsfeld attain the President's three major goals for the Defense 
Department:

        <bullet> First, to strengthen the bond of trust with the 
        American military;
        <bullet> Second, to develop the capabilities to defend against 
        missiles, terrorists and the complex set of threats to our 
        information systems and our all-important assets in space; and
        <bullet> Third, to take advantage of the technological 
        revolution in order to help us create a military for the 21st 
        century.

    At the end of my tour, if I have improved the well-being of the 
Department's people--military and civilian, Active and Reserve--and 
their ability to defend our Nation, I will consider my mission 
accomplished.

       multinational force and observers--sinai force deployment
    6. Senator Thurmond. A significant concern with both the Bosnia and 
Kosovo deployments is that they appear to have no end. We only need to 
look at our deployments to the Sinai Peninsula that started in 1982. 
The 900 servicemembers year round commitment contributes to the high 
operations pace of our Armed Forces and is a drain on the Department of 
Defense's resources.
    In this era of peace between Egypt and Israel, what do these forces 
contribute to the peace in the region and when will this commitment 
end?
    Dr. Wolfowitz. MFO-Sinai has been a particularly successful 
peacekeeping operation and a highlight of the continued peace between 
Egypt and Israel. The presence of U.S. forces in the MFO has been a 
major contributor to mutual Egyptian-Israeli confidence in the Camp 
David Accords. This success now presents the opportunity to consider 
whether this commitment is still necessary. The Department is now 
reviewing options for the possible reduction of U.S. troop commitment 
in the Sinai.

                    department of defense facilities
    7. Senator Thurmond. The average age of the Department of Defense 
facilities is 41 years and is increasing. To support this 
infrastructure the Department is investing less than 2 percent of its 
replacement value while the accepted corporate standard is at least 3 
percent. In simple terms, we are not investing sufficient resources to 
maintain our facilities to ensure the quality of life and readiness.
    As the next Deputy Secretary of Defense you will have a significant 
role in ensuring the readiness of our facilities. Other than providing 
the necessary fiscal resources to maintain our facilities, what other 
steps can the Department take to resolve this critical issue?
    Dr. Wolfowitz. You are right, Senator, our physical plant is aging. 
DOD has previously reported that it maintains excess infrastructure. We 
will continue to demolish and dispose of excess facilities 
individually. We plan to improve utilization of existing facilities 
through more joint use and through partnering with the private sector 
on leasing underutilized facilities. However, the Department is 
currently conducting a comprehensive defense review that will help 
guide decisions regarding our infrastructure strategy. Until that 
review is complete, I will defer judgment on whether further 
initiatives and additional funding are needed.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
               u.s.-china military-to-military relations
    8. Senator Smith. I believe China is a serious threat to U.S. 
national security and our allies in Asia. In 1999, Rep. Tom DeLay and I 
addressed the threat posed by the Clinton administration's policy of 
engagement with China with an amendment restricting military-to-
military exchanges, a law which we believe the Clinton administration 
circumvented. We believe the military-to-military briefings given by 
DOD made available sensitive U.S. military information to the People's 
Liberation Army.
    Would you support ending this military-to-military exchange 
program? Or would you propose to overhaul it to convert it into a 
program that teaches code of conduct for soldiers, the role of a 
military in a democratic society, etc., information which would 
actually benefit the PLA and would promote our stated goals of 
encouraging China to democratize?
    Dr. Wolfowitz. Section 1201 of the Fiscal Year 2000 National 
Defense Authorization Act prohibits ``inappropriate exposure'' of U.S. 
operational capabilities and technologies to Chinese visitors. The 
Department of Defense will continue to strictly comply with the 
requirements of this provision in our military-to-military engagement 
with the PRC. As the new administration settles in place, we are 
undertaking a serious review of the schedule of military-to-military 
events with the PLA planned for 2001. In this review, we will ensure 
that our military-to-military program with the PLA supports U.S. policy 
objectives and will emphasize that the program must have increased 
reciprocity and transparency on the part of the PLA. Secretary Rumsfeld 
conveyed this message clearly and directly to senior Chinese leaders 
during his March 22, 2001 meeting at the Pentagon with Chinese Vice 
Premier Qian Qichen.

                            export controls
    9. Senator Smith. I am very concerned over easing export control 
restrictions to China, which has allowed the Chinese Government to 
purchase powerful computers and garner sensitive aerospace technology 
assistance from the United States that can be employed for military 
purposes. How do you see the DOD working to prevent such dual-use 
transfers of technology from occurring under the Bush administration? 
Do you believe the DOD should have a heightened role in determining the 
sale of sensitive dual-use technologies to China?
    Dr. Wolfowitz. My objective is to ensure that we have a robust 
export control system that controls sensitive items and technologies 
that represent national security or proliferation risks. I am committed 
to ensuring that DOD plays a key role in the development and 
implementation of export control policy. In this regard, I will be 
paying close attention to the operation of existing interagency 
mechanisms and will work to revise them if it is necessary to protect 
our national security interests, particularly with regard to exports of 
sensitive dual-use technologies to high risk destinations.

                             taiwan policy
    10. Senator Smith. I support the sale of U.S. military hardware, 
including the Aegis system, to Taiwan in order for the island nation to 
defend its democracy against Chinese threats to reunify through 
military aggression. Furthermore, I support the Taiwan Security 
Enhancement Act (TSEA).
    Do you agree that the U.S. should sell advanced military hardware 
such as the Aegis system and other types of military hardware to Taiwan 
to balance the military situation in the Taiwan Strait? Will you push 
for TSEA's passage in the Senate since President Bush endorsed the 
measure as a candidate?
    Do you believe the United States military has a role to play in the 
collective defense of Taiwan as a democratic friendly nation beyond 
military hardware sales should China initiate military aggression 
towards Taiwan?
    Dr. Wolfowitz. We support the provision of defense articles and 
services in accordance with the Taiwan Relations Act. We are currently 
evaluating this year's Taiwan's arms sales requests, to include the 
Aegis-derived Evolved Advanced Combat System. With regard to the Taiwan 
Security Enhancement Act, we support the intent of the legislation--
ensuring the security of Taiwan. As has been stated publicly, the 
United States remains committed to maintaining regional peace and 
stability in this region, and we continue to stand firmly for the 
peaceful resolution of differences between the PRC and Taiwan. With 
regard to U.S. military support to Taiwan beyond arms sales, our forces 
are postured to safeguard U.S. interests and to react quickly to a 
range of possible contingencies in the region.

                                ke-asat
    11. Senator Smith. Over the last decade I have encountered 
considerable difficulty within the DOD and the previous administration 
to ensure the development and deployment of the Kinetic Energy Anti-
Satellite (KE-ASAT) program. I believe we should finish the KE-ASAT 
program (which is 90 percent complete), which provides defensive 
measures against hostile space assets surveiling U.S. forces.
    Do you support programs such as KE-ASAT that will protect U.S. 
troops and ensure U.S. military dominance? I would like to ask you for 
your commitment to completing this vital program and providing the 
necessary oversight over SMDC to do so, including returning the team to 
the program and necessary funding for completion, as General Shinseki 
committed to me to do.
    Dr. Wolfowitz. I fully support protecting our U.S. troops and doing 
what is necessary to ensure U.S. military dominance. We will be looking 
at a new strategy for America's defense in our strategic review and 
subsequently in the Quadrennial Defense Review. As part of these 
reviews, we will look at how to programmatically and operationally 
support these very important goals.

                        space commission report
    12. Senator Smith. Last month, Secretary Rumsfeld released the 
findings of the Space Commission Report which made several 
recommendations to improve military space management and assets.
    What are your views on the need to reform military space management 
and the need to implement the recommendations made by Secretary 
Rumsfeld and the Commissioners?
    Dr. Wolfowitz. It is clear that the United States relies 
significantly on space for our national security. We need to ensure 
that the management and the organization of our national security space 
program reflect the importance of space to the Nation today. I believe 
that a more comprehensive approach is necessary to assign clear 
responsibilities and accountability for national security space 
programs. The Space Commission has presented a thorough, independent 
and objective assessment of our national space program. In our 
strategic review, we must seriously consider their recommended 
management and organizational changes if we are to meet the national 
security space needs of the 21st century.

                      cooperative threat reduction
    13. Senator Smith. I have serious concerns with the Cooperative 
Threat Reduction (CTR) program which I believe subsidizes the Russian 
Government's ability to improve their military at U.S. taxpayers 
expense--allowing the Russians to use our funds to replace obsolete 
weapons with more sophisticated ones. Meanwhile, the Russians continue 
to modernize their military and proliferate weapons of mass destruction 
to other hostile states.
    Do you believe the Cooperative Threat Reduction program could be 
reinvented to reach its original objectives--i.e. reducing the threat 
and conditioning funding to Russian compliance, particularly on 
proliferation issues?
    Dr. Wolfowitz. As Secretary Rumsfeld has noted to Congress, the 
elimination of former Soviet strategic nuclear weapons and their 
delivery vehicles under the Cooperative Threat Reduction (CTR) program 
has benefited U.S. national security. I would note that the CTR program 
does not provide funds to the Russian Government. All assistance is in 
the form of contracts to either U.S. companies or to Russian 
enterprises and institutes. The weapon systems being eliminated are 
mainly operational systems while the pace of Russian strategic 
modernization remains slower than projected. Nevertheless, a review of 
ongoing CTR projects and their national security implications is 
appropriate and has now begun.

                            chinese missiles
    14. Senator Smith. Last year, I addressed in a floor amendment the 
sale of the Russian-made Moskit sea-skimming missiles purchased by 
China for use on Sovremenny Class destroyers, which China now 
possesses.
    How do you view this direct threat to U.S. naval forces in the 
Pacific and how do we aid Taiwan as required under the TRA to counter 
this escalated threat?
    Dr. Wolfowitz. Due to its high speed and maneuverability, the 
Moskit sea-skimming missile does present technical challenges to navies 
around the world. The Taiwan military has some limited capability 
against Moskit missile through U.S. supplied weapons systems. Perry-
class and Knox-class frigates are equipped with the PHALANX Close-In 
Weapons System (CIWS), which is designed to intercept surface skimming, 
low-flying anti-ship missiles. In the event of a conflict, Taiwan's F-
16 aircraft, equipped with the air-launched Harpoon missiles, could be 
used to attack People's Republic of China ships equipped with the 
Moskit anti-ship cruise missile.

                              phalcon sale
    15. Senator Smith. I have recently read in defense industry 
publications that Israel is attempting to resurrect its Phalcon early 
warning radar sale with China. This sale will increase China's ability 
to project force in the Taiwan Strait and into the South China Sea. I 
believe this sale would also threaten the U.S. Navy's 7th Fleet. What 
would you do as Deputy Secretary of Defense to deter this sale to 
China?
    Dr. Wolfowitz. The United States has consulted with the Israeli 
government closely on its proposal to sell the Phalcon early warning 
aircraft to China. We have made clear to the Israelis that we view the 
Phalcon as a threat to U.S. interests and regional stability in Asia, 
as well as a potential threat to any U.S. forces involved in a military 
conflict with China, and we have clearly stated our opposition to the 
sale. Then-Prime Minister Barak announced in July 2000 that the sale 
would not go forward, and we consider the matter closed.

                        national missile defense
    16. Senator Smith. I am an ardent supporter of the creation of a 
multi-tiered missile defense system. I believe the United States should 
move forward with developing and deploying this system. Furthermore, I 
am in full agreement with Secretary Rumsfeld's assessment that without 
a missile defense, hostile nations will be able to alter the actions 
and limit options available to the United States.
    Would the abrogation of the ABM Treaty help with the goal of 
pursuing missile defense?
    How should the United States approach providing Great Britain, 
Japan and Taiwan and other allies with missile defense capabilities?
    Dr. Wolfowitz. The issue of how to handle the ABM Treaty will be 
part of our overall strategic review. However, as senior administration 
officials have made clear, the ABM Treaty, in its current form, is no 
longer relevant. We will look at missile defense options unconstrained 
by the ABM Treaty, to see what makes the most sense. We hope to 
persuade the Russians of the need to permit deployment of effective 
missile defenses. But as Secretary Powell has noted, it may be 
necessary to withdraw from the ABM Treaty if the government of the 
Russian Federation will not agree to modifications necessary to 
accommodate our missile defense programs.
    The administration has made clear that our proposed missile 
defenses would protect our friends and allies as well as the United 
States. We have also made clear our commitment to close and substantive 
consultations with allies. These consultations have begun, and we will 
seek the views of our allies about specific missile defense responses 
to the growing ballistic missile threat.

      peacekeeping and humanitarian missions: impact on readiness
    17. Senator Smith. I am disturbed at the dangerous decline of the 
U.S. military over the last decade. There is a long list of issues that 
concern me, but in particular, I see a pressing need to address 
military readiness. Furthermore, I believe peacekeeping and 
humanitarian missions correlate directly to our current readiness 
dilemma. What do you believe is the best way to work with the DOD to 
reverse our readiness deficiencies and to terminate U.S. peacekeeping 
and humanitarian missions that have no bearing on U.S. national 
security interests? Is anyone at DOD conceiving an exit strategy for 
the Balkans?
    Dr. Wolfowitz. The Secretary is actively reviewing U.S. military 
participation in the full range of ongoing peace operations, 
humanitarian operations, and routine engagement activities to ascertain 
ways for reducing tempo strains on our personnel while also continuing 
to advance U.S. interests. In this regard, it is worth noting that in 
some cases, such as communications, engineering, and civil affairs, the 
impact of ongoing operations on readiness is not entirely negative, as 
they can provide excellent training for certain military specialties.
    Our strategic goals in the Balkans are to maintain peace and 
security in South Eastern Europe, protect the strength of the NATO 
Alliance, and maintain U.S. credibility with our European Allies. With 
that in mind, we want to avoid precipitous withdrawals while 
continuously reviewing troop levels to tailor them properly to mission 
and environment. Changing conditions in Bosnia and Kosovo will allow 
adjustments with the intent of ``right-sizing'' our forces to the tasks 
at hand.

                             defense review
    18. Senator Smith. I am pleased that Andy Marshall has been 
selected to review the structure of the Defense Department. When will 
this review be completed and what kind of input will you or other 
appointees have in it? Will Senate Armed Services Committee members be 
briefed on Marshall's findings?
    Dr. Wolfowitz. To clarify the structure of our review, Andy 
Marshall has been asked to review the Department's overall strategy. 
Additional reviews will be conducted to look at other areas of concern. 
Later this spring, Secretary Rumsfeld will provide testimony in support 
of the fiscal year 2001 Supplemental Budget, at which time he will 
outline some broad aspects of the review for Congress.

                       security clearance backlog
    19. Senator Smith. Last year, I passed legislation that tightened 
the requirements for people seeking DOD security clearances for job-
related purposes following revelations of clearances being granted to 
felons. But there is another problem, the clearance backlog.
    The Defense Security Service (DSS) is still a chaotic and 
demoralized agency and the security clearance backlog has not improved. 
What is being done to resolve this problem? Will new leadership be 
appointed at the DSS?
    Dr. Wolfowitz. I share your concern that this is a very serious 
issue that must be addressed quickly. As we assemble our senior 
leadership team, it will be a priority to consider any process changes 
that may be necessary to alleviate the current backlog in security 
clearances.

                             base closures
    20. Senator Smith. As I understand it, a BRAC round is being 
considered as a way to save money by the DOD. Portsmouth Naval 
Shipyard, (PNSY), which is located in New Hampshire, represents the 
best performance shipyard for attack subs. PNSY successfully rolled out 
``smartbase'' technologies to demonstrate to the DOD the cost saving 
improvements of the ``smartbase'' technology. Can you outline what you 
believe are the parameters of any BRAC Secretary Rumsfeld and you would 
like to see?
    Dr. Wolfowitz. Our base structure should fit our force structure 
requirements. We are looking at the issue of excess infrastructure, and 
will make a decision on how best to address this as soon as we can in 
the review process. When we have established the proper relationship 
between the force structure needed to execute our national security 
strategy and the infrastructure needed to support that force, we will 
work closely with Congress to develop a process that is fair and true 
to that objective.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                         basic research funding
    21. Senator Santorum. President Bush has emphasized the need to 
fund ``leap ahead'' technologies and has mentioned the possibility of 
``skipping a generation of weapons to make them more lethal and 
mobile.'' The only way this policy will succeed is if President Bush 
commits to investing heavily in basic sciences in American 
universities.
    The Department of Defense has historically played a major Federal 
role in funding basic research and has been a significant sponsor of 
engineering research and technology development conducted in American 
universities. For over 50 years, Department of Defense investments in 
university research have been a dominant element of the Nation's 
research and development (R&D) infrastructure and an essential 
component of the U.S. capacity for technological innovation.
    Supporting university research benefits the Department of Defense 
in many ways. In addition to producing important advances in knowledge, 
support to university research helps keep top scientists and engineers 
involved in defense research. Also, students who get hands-on research 
training become the highly qualified scientists and engineers of the 
future who go to work in academia, industry, and Federal laboratories.
    In the 1990s, Basic Research funded through the Department of 
Defense peaked at $1.489 billion in fiscal year 1993 and declined to a 
level of $1.059 billion in fiscal year 1998. In fact, funding for 
Department of Defense Basic Research began to increase, beginning in 
fiscal year 1999, only after Congress took the lead in reversing this 
trend.

    Do you believe that there exists a mismatch between the goals of 
President Bush and levels of investment in our Department of Defense 
Basic Research accounts?
    If so, what do you believe is a more accurate figure that ought to 
be invested in Department of Defense Basic Research funding?
    Can you indicate any short-term goals that you feel are achievable 
with respect to Department of Defense Basic Research funding?

    Dr. Wolfowitz. First, it is important to review the funding history 
for the Department's Basic Research program. The funding numbers you 
have cited for fiscal years 1993 and 1998 are appropriated values in 
fiscal year 2001 constant dollars. The table below shows both the 
requested and appropriated amounts for the Department's Basic Research 
program in fiscal year 2001 constant dollars.

                          BASIC RESEARCH DOLLARS IN MILLIONS/FISCAL YEAR 2001 CONSTANT
----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal Year
                                --------------------------------------------------------------------------------
                                   1993     1994     1995     1996     1997     1998     1999     2000     2001
----------------------------------------------------------------------------------------------------------------
Requested......................    1,277    1,398    1,337    1,300    1,220    1,215    1,148    1,133    1,217
Appropriated...................    1,489    1,312    1,282    1,176    1,090    1,059    1,098    1,157    1,314
Difference.....................     +213      -86      -55     -124     -130     -156      -50      +24      +97
----------------------------------------------------------------------------------------------------------------

    As stated in ``A Blueprint for New Beginnings,'' outlining the 
President's Budget Request to Congress, ``the President believes that 
the Nation's defense strategy should drive decisions on defense 
resources.'' Such is the case with Basic Research. However, determining 
a sufficient level of investment for Basic Research is not a precise 
science, rather it is a strategic decision to invest in broad areas of 
research that have the potential of yielding revolutionary advances, as 
well as pursuing solutions to known operational problems. An investment 
in Basic Research pays dividends in many ways. Basic research is a 
long-term investment with an emphasis on opportunities for military 
application in the future, yet it also, as you note, contributes to our 
national academic and scientific knowledge base by providing 
approximately 40 percent of the research funding for the Nation's 
colleges of engineering. The Department will sustain an investment in 
Basic Research because of proven significant, long-term benefits.
    It has always been the Department's goal to fund Basic Research, 
and the remainder of the Science and Technology program, at a level 
adequate to ensure the technological superiority of our armed forces. 
However, we also need to ensure that the funding levels of the various 
components of the DOD budget are balanced based on our assessment of 
the most urgent requirements at any given time. The Department's 
compelling desire to increase the modernization budget, while 
sustaining readiness at a high level, must also be considered. The 
amount of funding the Department will request for Basic Research will, 
I believe, be adequate to maintain our technological superiority both 
near-term and in the future.

                        defense industrial base
    22. Senator Santorum. Last year, based on concerns articulated by 
the defense industry, the Department of Defense initiated a review of 
ways to improve not only the health of the defense industrial base but 
also competition among these companies. The review was carried out by a 
Defense Science Board (DSB) panel. The goal of the process was to see 
what kinds of actions in terms of acquisition practices, rules and 
regulations needed to be changed in order to help the Department get 
lower costs and more innovation.
    The DSB report, Preserving a Healthy and Competitive U.S. Defense 
Industry to Ensure our Future National Security, concluded that the 
Department of Defense must move aggressively to help American companies 
attract and retain top talent as well as improve overall profitability 
by continuing changes in profit policies boosting investment in defense 
research and development.
    The DSB panel issued a listing of 27 regulatory and policy changes 
designed to help ensure the financial health of the defense industry.

    Have you reviewed the DSB panel's report on improving the health of 
the defense industry?
    Are there other policy or regulatory changes that you would 
recommend to improve the health of the defense industry and improve 
innovation that were omitted by the report?
    Are there ways that the Department could do a better job at 
encouraging firms to increase their independent research and 
development (IR&D) efforts?
    Are there changes that can be made which will enable individuals 
who leave the private sector for public sector service the ability to 
return to private sector employment?

    Dr. Wolfowitz. We are continuing to address the recommendations of 
the DSB panel's report. As we assemble our management team, we will be 
examining recommendations made by a variety of groups, such as the 
Business Executives for National Security Tail-to-Tooth Commission, in 
order to establish the initiatives we intend to pursue. It is 
recognized that we must consider ways that the Department can encourage 
firms to increase their IR&D efforts. For example, the recommendation 
made by the DSB to revise the IR&D policy regarding fees could 
incentivize contractors to spend IR&D dollars. This is an area that 
certainly requires further analysis and careful consideration. At this 
point, it would be premature to offer more specific detail on changes 
that may be necessary.

                             base closures
    23. Senator Santorum. The military base closure process (BRAC) was 
first established in 1988. Since that time, 97 bases have been closed 
and about 400 have been realigned. The process of closure and community 
development after the base closes has suffered from problems in the 
past, especially in the late 1980s and early 1990s. Accordingly, 
between 1992 and 1995, the Federal Government adopted policies to 
improve the reuse and redevelopment process governing these closed 
facilities.
    Congressional efforts to authorize additional base closing rounds 
have been unsuccessful due in large part to the belief that President 
Clinton interfered with the integrity of the process during the 1995 
BRAC review.
    In an effort to re-start the base closing process, several Members 
of Congress have discussed the creation of a ``two-step'' BRAC process. 
Under this proposal, the military services would identify certain 
``core'' bases that would not be considered for closure. Facilities 
like the Pentagon or Andrews Air Force Base would fall into this 
category. These core facilities, which might comprise up to 25 percent 
of all bases, would be exempt from further review by the base closure 
commission.
    A full assessment of ``non-core'' bases would follow this initial 
review period. Proponents of this approach believe that the two-step 
process would help eliminate community uncertainty and also help ``core 
base'' communities avoid the expense of hiring consultants and other 
experts to guide them through fighting the closure process.

    Do you believe that the Department of Defense should recommend to 
President Bush that he request authorization of additional BRAC rounds?
    If so, do you believe that the process must be changed to restore 
faith in the fairness of the process?
    What are your thoughts on the proposed ``two-step'' BRAC process 
that has been suggested?

    Dr. Wolfowitz. Our base structure should fit our force structure 
requirements. We are looking at the issue of excess infrastructure, and 
will make a decision on how best to address this as soon as we can in 
the review process. When we have established the proper relationship 
between the force structure needed to execute our national security 
strategy and the infrastructure needed to support that force, we will 
work closely with Congress to develop a process that is fair and true 
to that objective.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                            strategic review
    24. Senator Lieberman. What is your role in the current strategic 
review?
    Dr. Wolfowitz. As the Deputy Secretary of Defense I am part of a 
small group reviewing the work of each panel associated with our 
overall look at the Defense Department structure. I provide guidance 
regarding the particular areas each panel undertakes, as well as 
reviewing their results. I also make recommendations to Secretary 
Rumsfeld on various aspects of the overall review.

                             transformation
    25. Senator Lieberman. What do you think are the necessary actions 
to effect transformation?
    Dr. Wolfowitz. Successful military transformation will require 
several actions, the first of which is to generate organizational slack 
and free-up resources needed to develop future capabilities. Second, we 
need to create new, experimental forces dedicated to the development of 
new combat capabilities. These forces would conduct long-term 
experiments, develop operational concepts and even look at new ways of 
organizing forces. Finally, when the U.S. engages in conflict, these 
new units, should they prove effective, would be vanguard forces to 
test and refine our new methods.

                            strategic review
    26. Senator Lieberman. How do you intend to assure the strategic 
review puts the main focus on these actions?
    Dr. Wolfowitz. As discussed earlier, Andy Marshall is conducting 
one element of the strategy review. For the past 8 years, he has 
carefully reviewed past military transformation efforts and the 
conditions that allowed them to be successful. Also, there is a panel 
dedicated solely to the issue of transformation among the group of 
panels contributing to the Defense review.

                       quadrennial defense review
    27. Senator Lieberman. How do you see the review connecting to the 
Quadrennial Defense Review (QDR)?
    Dr. Wolfowitz. The Defense review is an iterative process that will 
be ongoing. The findings and recommendations of the various elements of 
the Defense review will serve as road maps for key issues that must be 
considered during the QDR process, and subsequently, in the development 
of future budget requests.

                             defense review
    28. Senator Lieberman. Please tell us the time lines for the 
review.
    Dr. Wolfowitz. Again, I want to emphasize that the Defense review 
is an iterative process that will be ongoing. Accordingly, specific 
completion dates have not been established.

                             top priorities
    29. Senator Lieberman. What do you see as the top priorities for 
the Defense Department and the Pentagon?
    Dr. Wolfowitz. The Department's top priorities, as outlined by 
Secretary Rumsfeld are:

    1. Fashion and sustain deterrence appropriate to the new national 
security environment, aimed at devaluing investment made in weapons of 
mass destruction and their delivery systems. This must be based on a 
combination of nuclear and non-nuclear defensive capabilities working 
together to deny the opportunity and benefits associated with the 
threat or the use of weapons of mass destruction against U.S. forces, 
our homeland, and our allies.
    2. Assure the readiness and sustainability of our forces, reducing 
unnecessary risks to American interests and to the lives of American 
service men and women. Inadequate readiness takes a larger toll on the 
future quality of our forces. Even the highest morale is eventually 
undermined by back-to-back deployments, poor pay, shortages of spare 
parts and equipment, and declining readiness.
    3. Modernize U.S. Command, Control, Communications, and 
Intelligence (C\3\I) capabilities to support our 21st century needs. 
Modern C\3\I infrastructure is the foundation upon which military power 
rests, and is fundamental to the transformation of U.S. military 
forces. We must also strengthen our intelligence capabilities and our 
space capabilities and protect those assets against various forms of 
attack.
    4. Transform the U.S. defense establishment to address our new 
circumstance by swiftly introducing new weapons systems. Undertake 
near-term investment to acquire modern capabilities derived from U.S. 
scientific and industrial preeminence.
    5. Reform DOD structures, processes, and organization. The legacy 
of obsolete institutional structures, processes, and organizations 
creates unnecessary costs and imposes unacceptable burden on national 
defense. We will examine omnibus approaches to changing the statutory 
and regulatory basis for the most significant obstacles to reform.

              the role of the deputy secretary of defense
    30. Senator Lieberman. Will you adhere to the habitual role of the 
DEPSECDEF and manage the day-to-day operations of the Pentagon?
    Dr. Wolfowitz. Yes, it is fair to say that while the Secretary is 
the Chief Executive Officer, the Deputy functions mainly as the Chief 
Operating Officer (COO). This normal business relationship does not 
extend to the day-to-day supervision of military operations, but does 
cover most other areas of responsibility in the Department.

    31. Senator Lieberman. Will your role be policy or management?
    Dr. Wolfowitz. I believe it is impossible to separate policy 
formulation and management. In general, I intend to be the COO of the 
Department. I realize that we will have an Under Secretary for Policy, 
as well as other senior officials in the Department with responsibility 
for various aspects of policy. My prior service as Under Secretary for 
Policy will in no way limit the traditional authority of those 
officials.

    32. Senator Lieberman. Given your depth of policy expertise, how 
will you coordinate your role with the Under Secretary for Policy, once 
he/she is nominated?
    Dr. Wolfowitz. The Under Secretary for Policy will function in much 
the same way as they have in the past. I will assist and give guidance 
as necessary, but the fact that I once held this position will not 
limit the prerogatives of the incumbent.

                            homeland defense
    33. Senator Lieberman. What should be the Pentagon's role in the 
broader issue of homeland defense?
    Dr. Wolfowitz. Homeland defense is not a new mission area. The U.S. 
military has a long and proud tradition of protecting the American 
homeland from a wide variety of threats. Over time, the nature of the 
threat has changed--from traditional land and maritime invasion in the 
country's early years, to potential nuclear attack during the Cold War, 
to the present day potential of nuclear, biological, chemical, missile 
and information attacks from both state and non-state actors, such as 
terrorists. As part of our strategic review we will be addressing how 
the Department of Defense should be postured to ensure continued 
defense of the U.S. homeland from these evolving threats.

                              military pay
    34. Senator Lieberman. Do you believe there is a pay gap for 
military members?
    Dr. Wolfowitz. Much has been written about the existence of a 
military ``pay gap.'' Many argue that difficulty in recruiting and 
retaining high quality people in itself suggests the presence of a pay 
gap, but I believe the fundamental issue is the ability of pay to 
attract and retain a quality force. Recognizing that it has become 
increasing difficult to recruit and retain amidst today's economy, one 
can make a case that pay may not be adequate. One of my important 
responsibilities will be to ensure that great attention is paid to 
sustaining a level of military pay that is competitive, and supportive 
of consistent success in recruiting and retention.

    35. Senator Lieberman. Do you support a military pay raise?
    Dr. Wolfowitz. Yes. The President recently announced an additional 
$1.4 billion to be directed to military pay. This will provide for a 
minimum pay raise of 4.6 percent on January 1, 2002, and $1 billion to 
be used to address specific recruiting and retention needs.

    36. Senator Lieberman. Should the next pay raise be across the 
board or targeted, as in pay for skill?
    Dr. Wolfowitz. I believe all military members should receive a pay 
raise, and the President has proposed that all members will get a 
minimum of a 4.6 percent raise on January 1, 2002. Exactly how to use 
the President's additional billion dollars needs further review.

                         defense health program
    37. Senator Lieberman. What do you consider to be the most 
significant threats to the Defense Health Program (DHP) and the ongoing 
implementation of TRICARE?
    Dr. Wolfowitz. It is imperative that the Defense Health Program 
(DHP) maintains a fully funded budget that allows for a stable business 
environment. The absence of adequate funding directly impacts patient 
care in the Military Health System. With the implementation of expanded 
TRICARE benefits for our Medicare-eligible beneficiaries, directed by 
the National Defense Authorization Act for Fiscal Year 2001, funding 
continues to be a challenge. The Department has identified an 
approximate shortfall of $1.4 billion for fiscal year 2001 and will 
continue to assess DHP funding requirements as well as necessary 
solutions during the Secretary's strategic review.

                       tempo for our armed forces
    38. Senator Lieberman. Do you have any plans to reduce tempo for 
our armed forces?
    Dr. Wolfowitz. The use of military force is one of the most 
important decisions a President can make. We in the Department will 
work closely with the President and his senior advisors to develop 
appropriate policies to guide the use of our military forces in 
peacetime, crisis and war. A decision to employ U.S. military forces in 
support of our national interests is one that should never be taken 
lightly. Likewise, the decision to sustain, reduce, or end the 
commitment of U.S. forces to ongoing operations must be informed by 
careful assessment and deliberation. Working with Congress and our 
allies, we will reexamine the balance among force levels, commitments 
and deployments. We will ensure that we are focusing on the most 
important defense tasks and not placing unreasonable demands on our men 
and women in uniform. Still, we recognize that deployments will always 
be a part of military life, and we will continue to improve the ways we 
monitor and manage them.

    39. Senator Lieberman. Given that the Services are different and 
even define tempo differently, how do you plan to measure tempo in a 
consistent manner?
    Dr. Wolfowitz. We recognize that deployments will always be a part 
of military life, and we continue to improve the ways we monitor and 
manage them. Last year, DOD implemented a department-wide tempo 
management system to allow us to identify the activities that have most 
affected the pace of operations and help us to better manage the 
demands on our people. Also adopted was a common definition for 
personnel tempo that allows us to measure it in a consistent manner 
across the Department. Personnel tempo is defined as the time an 
individual spends away from his or her home station.

              two major theater war (mtw) force structure
    40. Senator Lieberman. Is the two MTW force structure the right 
planning tool to create a military prepared for the dangers of a new 
century? If not, what would you support using instead?
    Dr. Wolfowitz. Modern history suggests that the United States has 
often faced more than one security contingency at a time. With that 
history in mind, the Department's preparations to deal with multiple 
challenges have been appropriate. However, the increasing 
diversification of current and emerging threats requires that we build 
forces and operational concepts aimed at fashioning a new approach to 
deterrence. This issue will be examined in the strategic review.

                        national missile defense
    41. Senator Lieberman. What type of NMD system should the U.S. 
pursue?
    Dr. Wolfowitz. President Bush has said that the U.S. must build 
effective missile defenses, based on the best available options, at the 
earliest possible date, and that missile defenses must be designed to 
protect all 50 states, our friends and allies, and our deployed forces 
overseas. The administration is currently undertaking a major review of 
missile defense as part of a broader strategic review examining our 
future offensive and defensive requirements. In this review, we are 
examining all available technologies and basing modes that could 
contribute to an effective and affordable missile defense.

    42. Senator Lieberman. Given the limited funds available, what 
recommendations would you give regarding finding money for NMD?
    Dr. Wolfowitz. We are currently reviewing our policy with regard to 
missile defenses and how they can best contribute to deterrence in the 
current and emerging strategic environment. Given this, no decisions 
have yet been made with regard to possible deployments or funding 
requirements.

    43. Senator Lieberman. What is your priority if forced to make 
choices among NMD and conventional forces?
    Dr. Wolfowitz. The top priorities of the Department include the 
deployment of effective missile defenses, the assured readiness and 
sustainability of our deployed conventional forces, the modernization 
of command, control, communications, intelligence and space 
capabilities, and the transformation of the means by which we acquire 
these forces. Additionally, the Secretary is currently conducting a 
comprehensive review of the defense strategy and program, which 
includes our missile defenses as well as our conventional forces. Given 
this, no decisions have yet been made with regard to making funding 
choices among different programs.

    44. Senator Lieberman. How will the U.S.'s plans change if our 
European allies refuse to support U.S. NMD plans and Russia and China 
execute a nuclear force expansion as a result?
    Dr. Wolfowitz. As we move forward with missile defense, the 
administration is committed to consulting closely with our friends and 
allies to address their concerns and explore their possible 
participation in the program. The U.S. wants to deploy defenses that 
would protect our friends and allies as well as ourselves. We see 
missile defense as a necessary element of deterrence and an opportunity 
for a collective approach to enhancing security for all.
    We will also engage Russia and China on missile defense and seek to 
address their concerns about our defenses.
    Clearly, the missile defenses we are pursuing are so limited that 
they would not call into question Russia's nuclear deterrent. As for 
China, the Chinese have already embarked upon significant modernization 
of their nuclear forces that predates, and will take place regardless 
of, current U.S. NMD planning.

    45. Senator Lieberman. What is your reaction to the Russian 
European Missile Defense proposal?
    Dr. Wolfowitz. We are currently examining the Russian proposal. The 
U.S. government welcomes the fact Russia recognizes that Europe also 
faces a serious threat from weapons of mass destruction and missile 
delivery systems. While we welcome the prospect of cooperation in 
principle, the deployment of a ``Pan-European'' TMD system would not 
defend North America from ballistic missile attacks, and is therefore 
not a substitute for the deployment of a missile defense capable of 
defending North America.

                  stockpile stewardship program (ssp)
    46. Senator Lieberman. Will you support full funding for the 
Stockpile Stewardship Program (SSP)?
    Dr. Wolfowitz. As Secretary Rumsfeld made clear in his confirmation 
hearing, maintaining high confidence in the U.S. nuclear weapons 
stockpile is critically important to the national security interests of 
the United States. I believe that the administration needs to review 
the Stockpile Stewardship Program and to evaluate how well it has done 
its job to date, and how well it will likely meet future stockpile 
issues. Following on that review and evaluation, it should be in a 
position to make informed decisions on the future of the Stockpile 
Stewardship Program, including appropriate levels of funding.

                        nuclear weapons testing
    47. Senator Lieberman. You have stated that continued nuclear 
weapons testing is not an impediment to arms reductions. That, on the 
contrary, our confidence in the reliability of our weapons has enabled 
us to take the lead in nuclear arms reductions since the end of the 
Cold War. Can you explain this? If the U.S. tests, what argument would 
you use with the nations who might then decide on their own limited 
test program?
    Dr. Wolfowitz. During the last 5 years that the United States was 
conducting nuclear tests (1987-1992), we concluded arms control 
agreements and announced unilateral initiatives to reduce the number of 
U.S. nuclear arms by many thousands of warheads. So clearly, nuclear 
weapons testing is not an impediment to nuclear arms reductions. 
Indeed, our decisions to make these reductions were in part based upon 
the fact that due to nuclear testing we believed that our residual 
stockpile of nuclear weapons was safe, secure, and highly reliable.

                             balkans policy
    48. Senator Lieberman. What policy do you expect to promote for 
U.S. forces in the Balkans?
    Dr. Wolfowitz. The presence of U.S. forces in the Balkans is key to 
the successful outcome of these missions with associated issues of 
regional stability, both U.S. and NATO credibility, and alliance 
cohesion. However, we do believe that conditions in Bosnia have changed 
so as to allow a restructuring of the force, and we are working with 
our allies through the normal NATO 6-Month Review process and 
associated Stabilization Force (SFOR) Restructuring Options Study to 
achieve this. In Kosovo, the situation remains unstable enough to 
require engagement at current levels. However, we will pursue a change 
in the capabilities of the existing force more appropriate to the 
current mission.

    49. Senator Lieberman. Do you advocate a full or partial withdrawal 
of U.S. forces in the Balkans?
    Dr. Wolfowitz. Withdrawal of U.S. troops from the Balkans is a 
function of many things: the security situation, our position in NATO, 
regional stability. I am committed to withdrawing U.S. troops when the 
situation warrants. That will be done through the established NATO 
processes. I do feel that the situation in Bosnia should allow for 
restructuring of SFOR. Kosovo, however, is still unstable, and will 
require a more careful examination in consultation with our allies 
before any decisions are taken there. Within these factors, then, I am 
committed to withdrawing our soldiers as quickly as possible.

    50. Senator Lieberman. What strategy would you recommend we 
undertake regarding the Balkans?
    Dr. Wolfowitz. With the fall of Milosevic, and the consequent rise 
of a democratic-oriented government in Belgrade, the dynamics of the 
region have changed. We should clearly be able to focus on things such 
as: promoting rule of law, respect for human rights and civil society; 
combating crime and corruption; assisting in economic reform and 
revitalization; and regional cooperation as basis for integration into 
European institutions. These are the means by which we may capitalize 
on the change in the strategic context.

    51. Senator Lieberman. How do you intend to pursue that with our 
European allies and the Russians?
    Dr. Wolfowitz. The current engagement with our European allies 
continues to be effective. Increasingly, they are assuming more of the 
burden, and we will continue to press them on this.
    Ironically, our relations with Russia by way of the SFOR and 
International Security Force (KFOR) missions continue to be strong and 
cooperative. Our goal should be to build on these relationships through 
the NATO Permanent Joint Council and other bilateral means so as to 
gain their effective cooperation in dealing with the Balkan states.

               accelerating drawdown for iraqi opposition
    52. Senator Lieberman. Will you act to accelerate the drawdown 
authority you have for the Iraqi opposition?
    Dr. Wolfowitz. It all depends on how the drawdown authority is to 
be used. The administration is in the process of reviewing all elements 
of U.S. policy toward Iraq. This review will address whether efforts to 
promote regime change are appropriately focused. Until that review is 
complete it would be premature to make a judgment as whether the use of 
the drawdown authority should be changed.

               upgrading support for the iraqi opposition
    53. Senator Lieberman. Some speculate that the new administration's 
most promising option for putting Saddam ``back in the box'', in 
addition to bombing, is to support the Iraq National Congress (INC). 
How would you recommend the U.S. upgrade our political, economic, and 
military support of the opposition? What are the plans to do this?
    Dr. Wolfowitz. The administration is in the process of reviewing 
all elements of U.S. policy toward Iraq. This review will address 
whether our efforts to promote regime change are appropriately focused. 
Until that review is complete it would be premature to make a judgment 
on the exact nature of our future support to the Iraqi National 
Congress.

                    support for the iraqi opposition
    54. Senator Lieberman. How far should we be willing to go with 
regards to support for the INC-funds, weapons, equipment, sales, joint 
training, TMD, etc.?
    Dr. Wolfowitz. As part of our comprehensive policy review on Iraq, 
we are exploring how best to work with the Iraqi National Congress and 
other opposition groups to promote a regime transition in Iraq. Until 
the policy review is completed, it would be premature to speculate on 
the details of our support.

                              inc charter
    55. Senator Lieberman. What will the INC task force's charter 
include? When do you see it in place and functioning?
    Dr. Wolfowitz. The administration is reviewing its Iraq policy, 
including how it will work with the INC.

                         regime change strategy
    56. Senator Lieberman. You have talked about the current policy of 
containment regarding Iraq. You have stated that when this policy 
collapses, the U.S. will face a Saddam who has new nuclear, biological, 
and chemical weapons and a renewed capacity to conduct conventional 
warfare and terrorism, and who is bent on avenging his 1991 defeat. 
Further, this policy would risk many more lives than trying to 
overthrow Saddam by force. What are your recommendations regarding this 
new Iraqi strategy? What do you see as the Pentagon role? How will this 
affect U.S. force posture and OPTEMPO? What would you do to deal with 
increased OPTEMPO?
    Dr. Wolfowitz. There can be do doubt that Iraq under Saddam Hussein 
remains a threat to the Gulf region and to U.S. interests and that this 
threat must be deterred and contained. Part of the administration's 
Iraq policy review must be to consider whether more can be done to 
secure Baghdad's compliance with the conditions laid down by the United 
Nations in a way that would satisfy us and the world community at large 
that Iraq is no longer a threat. We also are exploring whether more can 
be done to hasten the replacement of the present regime by one that is 
prepared to live at peace with its neighbors and with the people of 
Iraq. Clearly, our armed forces will have a prominent part to play in 
our national strategy toward Iraq. Until our review is completed, 
however, it is not possible to say what the effect will be on OPTEMPO.

                             taiwan policy
    57. Senator Lieberman. You suggested that Taiwan point the way of 
democracy to China. That is no doubt several years down the road. How 
should the U.S. plan to assist in this endeavor?
    Dr. Wolfowitz. Taiwan today is a full-fledged democracy, with a 
vibrant multiparty system, a popularly elected president and 
representatives at all levels of government, a free and spirited press, 
and the people's strong commitment to democratization. One of the most 
important measures the United States can take to foster the development 
of democracy in the PRC is to support Taiwan's fledgling democracy by 
acting in accordance with the principles outlined in the Taiwan 
Relations Act.

    58. Senator Lieberman. You are known as a fierce defender of 
Taiwan, yet you have proposed a status quo in your writings. Can you 
elaborate on your approach?
    Dr. Wolfowitz. The status quo can best be maintained by ensuring a 
dynamic equilibrium of forces in the Taiwan Strait. Such a balance 
requires provision of necessary defense articles and services to Taiwan 
in accordance with the Taiwan Relations Act to offset an increasingly 
capable PRC military.

    59. Senator Lieberman. How far should we be willing to go with 
regards to support for Taiwan--funds, weapons, equipment, sales, joint 
training, TMD, etc.? What about a formal mutual defense pact?
    Dr. Wolfowitz. The Department of Defense is engaged with Taiwan in 
several ways to ensure the United States is appropriately prepared to 
implement relevant sections of the Taiwan Relations Act. The United 
States actively monitors the security situation in the Taiwan Strait, 
provides articles and services to Taiwan to ensure it can maintain a 
sufficient self-defense capability, works with Taiwan on a series of 
non-hardware related initiatives to address shortcomings in Taiwan's 
readiness, and maintains capabilities to assist in the defense of 
Taiwan if required. However, establishment of a formal defense pact 
would contradict the unofficial nature of our relationship with Taiwan.

                       missile defense and china
    60. Senator Lieberman. You support NMD. Is this contrary to your 
previous call for a status quo approach? Can you clarify this, since 
NMD might spur aggressive actions by China?
    Dr. Wolfowitz. Missile defense must be designed to protect all 50 
states, our allies and friends, and deployed forces overseas from 
missile attacks by rogue states and from unauthorized or accidental 
launches. The missile defenses that will be deployed by the U.S. are 
intended for defense.
    Nevertheless, we understand that China has voiced its concerns 
about the potential implications for its deterrent posture of any 
future U.S. missile defense system. China has recently expressed a 
willingness to engage in substantive dialogue on missile defense 
issues. We welcome and encourage such dialogue.
                                 ______
                                 
               Questions Submitted by Senator Max Cleland
                       u.s. airlift requirements
    61. Senator Cleland. The recently released Hart-Rudman Commission 
report places a high priority on the development of expeditionary 
forces, much of which is dependent on our strategic and tactical 
airlift capabilities. The Mobility Requirements Study estimates we are 
woefully short on meeting the future requirement.
    With the move away from more forward-deployed forces, airlift and 
air mobility will continue to be the key ingredient in our responding 
to future military missions and crisis. Do you agree that we need to 
focus attention on our airlift needs?
    Dr. Wolfowitz. The recent Mobility Requirements Study 2005, 
required by the fiscal year 2000 National Defense Authorization Act, is 
the most exhaustive study on this subject to date. It provides a 
comprehensive assessment of our overall mobility requirements in the 
context of a two major theater war strategy and shows that, under 
certain extremely demanding conditions, we have insufficient airlift 
assets to meet the requirement. Clearly strategic and tactical airlift 
capability will remain a vital element of our national military 
strategy, and the results of the Mobility Requirements Study 2005 are a 
good point of departure for establishing airlift requirements in the 
context of the current strategy review. Options for meeting airlift 
requirements, however, need to be carefully considered in a manner that 
allows them to be balanced with other strategic risk and affordability 
decisions.

                          military health care
    62. Senator Cleland. Military health care is a matter of great 
importance to our service members and this committee. Last year, in 
response to concerns raised by the Secretary of Defense and the 
Chairman of the Joint Chiefs, we enacted legislation that eliminates 
deductibles and co-payments under TRICARE Prime for families of Active 
Duty service members; provides lifetime health care for military 
retirees and their families through the TRICARE program; and provides a 
comprehensive pharmacy benefit for military retirees.
    We still hear concerns from our constituents about lack of timely 
access to health care, portability of benefits as our service members 
move around, and poor claims processing. What are your priorities for 
maintaining a working, accessible, properly funded health care system?
    Dr. Wolfowitz. As you point out, the National Defense Authorization 
Act for Fiscal Year 2001 includes significant health care benefit 
enhancements for military beneficiaries, both for families of Active 
Duty members and for retirees and their families. The Department is 
working hard to implement these important new programs. In addition, we 
have made significant strides recently in improving our health care 
business practices, in areas such as providing a portable health care 
benefit, exceeding industry standards for claims processing timeliness, 
and enhancing appointment systems to ease access to care. Our number 
one priority is to assure medical readiness to support wartime 
missions; delivery of an excellent peacetime health care benefit on a 
cost-effective basis is a vital secondary mission.

                           montgomery gi bill
    63. Senator Cleland. Almost all new service members enroll in and 
contribute to the Montgomery GI Bill. Only about half of these use 
their benefits, and many who use the benefits do not use all of their 
entitlement. Many of these soldiers, sailors, airmen, and Marines say 
they would like to stay in the Service, but feel they have to leave so 
that they can provide for the education of their spouses and children.
    I believe that many of these service members would stay in the 
service if they could transfer all or a part of their unused 
entitlement to GI Bill benefits to family members in return for a 
service commitment--an idea supported by the Hart-Rudman Commission 
report. Service Secretaries could use this retention tool selectively, 
just as they use reenlistment bonuses.
    Will you give serious consideration to how the Department of 
Defense could use the transfer of GI Bill benefits to family members as 
a retention tool and give me your thoughts on how we best do this?
    Dr. Wolfowitz. I will certainly give this full consideration. I 
agree that we must be prepared to adapt our incentive systems to 
address the changing needs and aspirations of service members.

                         hart-rudman commission
    64. Senator Cleland. The Hart-Rudman Commission review suggested 
numerous initiatives to help prepare for the domestic threats that 
endanger the continental U.S. Several of these initiatives involve 
reform and restructuring at the Department of Defense in an effort to 
streamline and make DOD more efficient and effective to address the 
threats in this new world ``disorder.'' With your past experience at 
the Department of Defense, you know of the challenges that face the 
Department of Defense in this new century. Do you anticipate the need 
to review and implement any of the suggestions?
    Dr. Wolfowitz. The Hart-Rudman Commission made an important 
contribution to the debate about the challenges of the evolving 
security environment and how the U.S. government should be aligned in 
order to prepare for future threats, particularly to the U.S. homeland. 
I welcome the insights of the Commission, whose members represent a 
vast wealth of experience in the national security arena, in addition 
to recommendations from other experts both inside and outside the 
Department.

               problem accounting for appropriated funds
    65. Senator Cleland. You noted in your response to an advance 
question that ``damage to modernization programs is best prevented by 
timely funding so that the Department does not have to disrupt 
procurement and RDT&E programs.'' However, my distinguished colleague 
Senator Byrd has recently reminded us that the Pentagon has a 
longstanding problem accounting for the funds appropriated for its use. 
As a two-time veteran of senior positions in the Department of Defense, 
what are your thoughts on the roots of this problem? Do you believe the 
solutions to this problem are internal to the Department, or is there 
something Congress can do to facilitate a solution?
    Dr. Wolfowitz. The Department's accounting problems are of a very 
specific nature. We have had no major problem tracking and accounting 
for appropriated funds in terms of ensuring that no more than the 
precise amount is spent on specifically the uses for which those funds 
were appropriated. Indeed, DOD accounting systems were designed exactly 
for this purpose, and that design is one of the root causes of the 
accounting problems referred to by Senator Byrd--that problem being 
that DOD accounting systems cannot yet produce annual financial 
statements that can receive an unqualified (most favorable) audit 
opinion. DOD accounting systems were not designed to produce such 
statements, and now that such statements are required the Department is 
moving expeditiously to transform its accounting systems to do so. This 
is an immense challenge, especially since much of the financial data 
needed for DOD financial statements originates outside the Department's 
accounting and finance systems. The massive effort to achieve 
acceptable financial statements is primarily internal to the 
Department, but as with all genuine reform the support of Congress 
remains essential.
                                 ______
                                 
    [The nomination reference of Dr. Paul D. Wolfowitz 
follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                 February 15, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Paul D. Wolfowitz, of Maryland, to be Deputy Secretary of Defense, 
vice Rudy F. de Leon, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Paul D. Wolfowitz, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

              Biographical Sketch of Dr. Paul D. Wolfowitz

    On February 5, 2001, President Bush announced his intention to 
nominate Dr. Paul Wolfowitz to be Deputy Secretary of Defense. If 
confirmed by the Senate, this will be Dr. Wolfowitz's third tour of 
duty in the Pentagon.
    For the last 7 years, Dr. Wolfowitz has served as Dean and 
Professor of International Relations at the Paul H. Nitze School of 
Advanced International Studies (SAIS) of The Johns Hopkins University. 
SAIS is widely regarded as one of the world's leading graduate schools 
of international relations with 750 students, studying on campuses in 
Washington, DC.; Nanjing, China; and Bologna, Italy. As Dean, he led a 
successful capital campaign that raised more than $75 million and 
doubled the school's endowment. Also under his leadership, the 
curriculum and facilities were modernized and new faculty and programs 
were added to shift the school's focus from the Cold War to the era of 
globalization.
    From 1989 to 1993, Dr. Wolfowitz served as Under Secretary of 
Defense for Policy in charge of the 700-person defense policy team that 
was responsible to Secretary Dick Cheney for matters concerning 
strategy, plans, and policy. During this period Secretary Wolfowitz and 
his staff had major responsibilities for the reshaping of strategy and 
force posture at the end of the Cold War. Key initiatives included the 
development of the Regional Defense Strategy, the Base Force, and two 
presidential nuclear initiatives that led to the elimination of tens of 
thousands of U.S. and Soviet nuclear weapons. Under his leadership, the 
Policy Staff also played a major role in reviewing war plans for the 
Gulf War, and developing and executing plans that successfully raised 
more than $50 billion in Allied financial support for the war and 
prevented Iraq from opening a second front with Israel.
    During the Reagan administration, Dr. Wolfowitz served for 3 years 
as U.S. Ambassador to Indonesia--the fourth largest country in the 
world and the largest in the Moslem world. There he earned a reputation 
as a highly popular and effective Ambassador, a tough negotiator on 
behalf of American intellectual property owners, and a public advocate 
of political openness and democratic values. During his tenure, Embassy 
Jakarta was cited as one of the four best-managed embassies inspected 
in 1988. Prior to that posting, he served 3\1/2\ years as Assistant 
Secretary of State for East Asian and Pacific Affairs, where he was in 
charge of U.S. relations with more than twenty countries. In addition 
to contributing to substantial improvements in U.S. relations with 
Japan and China, Assistant Secretary Wolfowitz played a central role in 
coordinating the U.S. policy toward the Philippines that supported a 
peaceful transition from the dictatorship of Ferdinand Marcos to 
democracy.
    Dr. Wolfowitz's previous government service included: 2 years as 
head of the State Department's Policy Planning Staff (1981-82); an 
earlier Pentagon tour as Deputy Assistant Secretary of Defense for 
Regional Programs (1977-80), where he helped create the force that 
later became the United States Central Command and initiated the 
Maritime Pre-positioning Ships, the backbone of the initial U.S. 
deployment 12 years later in Operation Desert Shield; and 4 years 
(1973-77) in the Arms Control and Disarmament Agency, working on the 
Strategic Arms Limitation Talks and a number of nuclear 
nonproliferation issues. His first government service was as a 
Management Intern at the Bureau of the Budget (1966-67).
    Dr. Wolfowitz taught previously at Yale (1970-73) and Johns Hopkins 
(1981). In 1993, he was the George F. Kennan Professor of National 
Security Strategy at the National War College. He has written widely on 
the subject of national strategy and foreign policy and was a member of 
the advisory boards of the journals Foreign Affairs and National 
Interest. Among his many awards for public service are: the 
Presidential Citizen's Medal, the Department of Defense's Distinguished 
Public Service Medal, the Department of State's Distinguished Honor 
Award, the Department of Defense's Distinguished Civilian Service 
Medal, and the Arms Control and Disarmament Agency's Distinguished 
Honor Award.
    Dr. Wolfowitz received a bachelor's degree from Cornell University 
(1965) in mathematics, and a doctorate in political science from the 
University of Chicago (1972). He is the father of Sara, David, and 
Rachel and lives in Chevy Chase, Maryland.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Paul D. 
Wolfowitz in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul Dundes Wolfowitz.

    2. Position to which nominated:
    Deputy Secretary, Department of Defense.

    3. Date of nomination:
    February 15, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 22, 1943; New York, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Separated since January 1999; Frances Clare Selgin Wolfowitz.

    7. Names and ages of children:
    Sara Elizabeth Wolfowitz, 22.
    David Samuel Wolfowitz, 19.
    Rachel Dahlia Wolfowitz, 13.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.

------------------------------------------------------------------------
                                    Dates        Degree
          Institution             attended      received    Date granted
------------------------------------------------------------------------
Ithaca High School, Ithaca, NY     9/58-6/61  ............  ............
Cornell University Ithaca, NY.     9/61-6/65  AB..........          1965
University of Chicago,            10/65-6/70  Ph.D........          1972
 Chicago, IL.
------------------------------------------------------------------------


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
              Job title                        Employer                 Location           Dates of employment
----------------------------------------------------------------------------------------------------------------
Dean.................................  Johns Hopkins            Washington, DC.........  January 1994-present.
                                        University School of
                                        Advanced International
                                        Studies.
Professor............................  National Defense         Washington, DC.........  January 1993-December
                                        University.                                       1993.
Under Secretary for Policy...........  Department of Defense..  Washington, DC.........  May 1989-January 1993.
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
      

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Foreign policy advisor to Bush/Cheney Presidential Committee, 2000.
    Foreign policy advisor to Dole/Kemp Presidential Committee, 1996.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

------------------------------------------------------------------------
                Date                    Amount           Recipient
------------------------------------------------------------------------
01-08-96...........................          $250  Maggie Tinsman.
03-18-96...........................         $1000  Bob Dole.
03-22-96...........................          $250  John W. Warner.
09-16-96...........................          $500  Republican Primary
                                                    PAC.
10-07-97...........................          $500  Dylan C. Glenn.
2000...............................         $2000  George W. Bush--
                                        (in kind)   Primary Campaign.
2000...............................         $1000  George W. Bush--
                                                    General Campaign.
2000...............................          $500  George W. Bush--
                                                    Recount Effort.
------------------------------------------------------------------------


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    President's Citizen's Medal; Department of Defense Distinguished 
Public Service Medal; Air Force Decoration for Exceptional Civilian 
Service; Department of state Distinguished Honor Award; Department of 
Defense Distinguished Civilian Service Medal; Arms Control and 
Disarmament Agency Distinguished Honor Award; Bangkok Embassy Refugee 
Coordinator's ``Pirate Buster'' Award; 1989 Lempad Prize from 
Indonesian Cultural Foundation; Embassy in Jakarta selected as one of 
four best-managed embassies in 1988; Phi Beta Kappa; National Science 
Foundation Fellow; Woodrow Wilson Fellow; General Motors Scholar; 
Telluride Scholar.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Dr. Paul Wolfowitz.
    This 15th day of February, 2001.

    [The nomination of Dr. Paul D. Wolfowitz was reported to 
the Senate by Senator John Warner on February 28, 2001, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on February 28, 2001.]


  NOMINATIONS OF DR. DOV S. ZAKHEIM TO BE UNDER SECRETARY OF DEFENSE, 
COMPTROLLER; CHARLES S. ABELL TO BE ASSISTANT SECRETARY OF DEFENSE FOR 
FORCE MANAGEMENT POLICY; AND VICTORIA CLARKE TO BE ASSISTANT SECRETARY 
                     OF DEFENSE FOR PUBLIC AFFAIRS

                              ----------                              


                        TUESDAY, APRIL 24, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:40 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Thurmond, 
McCain, Inhofe, Hutchinson, Bunning, Levin, Reed, Akaka, Ben 
Nelson, and Dayton.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Scott W. 
Stucky, general counsel; and Ann M. Mittermeyer, assistant 
counsel.
    Professional staff members present: Charles S. Abell, John 
R. Barnes, William C. Greenwalt, Gary M. Hall, Lawrence J. 
Lanzillotta, George W. Lauffer, Patricia L. Lewis, Cord A. 
Sterling, and Eric H. Thoemmes.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Gerald J. Leeling, minority counsel; 
Peter K. Levine, minority counsel; Creighton Greene, 
professional staff member; and Michael J. McCord, professional 
staff member.
    Staff assistants present: Thomas C. Moore, Suzanne K.L. 
Ross, and Michele A. Traficante.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; Michael 
P. Ralsky, assistant to Senator Hutchinson; Kristine Fauser, 
assistant to Senator Collins; David Young, assistant to Senator 
Bunning; Menda S. Fife, assistant to Senator Kennedy; Christina 
Evans and Barry Gene Wright, assistants to Senator Byrd; 
Elizabeth King, assistant to Senator Reed; Davelyn Noelani 
Kalipi, assistant to Senator Akaka; Eric Pierce, assistant to 
Senator Ben Nelson; and Brady King, assistant to Senator 
Dayton.

            OPENING STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Chairman Warner has asked me to open up the 
hearing. He has been delayed just a few additional minutes, so 
we will get going. We meet today to consider the nominations of 
Dr. Dov Zakheim to be Under Secretary of Defense, Comptroller; 
Charles Abell to be Assistant Secretary of Defense for Force 
Management Policy; and Victoria Clarke to be Assistant 
Secretary of Defense for Public Affairs.
    We want to first welcome all of our nominees, and the 
colleagues of ours who will be introducing them to the 
committee. I know that Secretary Rumsfeld and Deputy Secretary 
Wolfowitz want us to proceed expeditiously with these 
nominations. I think they are probably feeling a bit lonely in 
the Pentagon these days without the help that you all are going 
to be providing them, assuming you are confirmed. I know he has 
been looking forward to getting that assistance. The Department 
has a lot of important decisions to make. It needs senior 
civilian leadership in place to help make those decisions.
    Dr. Zakheim, we are all anxious to get the Department's 
fiscal year 2002 budget so that we can do our work here in 
Congress. The Comptroller, the chief financial officer for the 
largest department in the Federal Government, is a critical 
leadership position in the Department of Defense. It is an 
awesome responsibility. The financial management challenges 
facing the Department of Defense are enormous. As we've 
discussed, you are going to be in an important position to 
address those.
    It's always a pleasure to see Charles Abell. He is one of 
our own staff, who has been nominated for this important 
position in the administration. His service to this committee 
and to the Personnel Subcommittee for the last 8 years has been 
exceptional. Your committment to the well-being of our military 
members and their families is well known to us. We will miss 
your experience and expertise on this committee, but it will be 
put to good use in the department on behalf of our men and 
women in uniform and the civilians who serve in the Department 
of Defense.
    Ms. Clarke, you've been nominated to the very important 
position of public spokesperson for the Department of Defense. 
If confirmed, the American people will count on you to tell it 
like it is, like the man who sits to your right is famous for 
doing. [Laughter.]
    A lesser known, but just as important, aspect of the duties 
of the Assistant Secretary of Defense for Public Affairs, is 
the responsibility to keep the men and women in the military 
well-informed. So if you're confirmed, I am confident you will 
give this duty the attention that it rightfully deserves.
    So we have three well-qualified candidates for positions 
that the Secretary is anxious to fill. We all look forward to 
hearing from our nominees.
    I understand, Dr. Zakheim, your wife, Deborah, and your 
son, Roger, are here today. We welcome them. Mr. Abell, I 
understand that your wife, Kathy, is with you today, and we 
surely welcome her. I understand, Ms. Clarke, that your 
husband, Brian Graham, and children, Colin, Devon, and Charlie 
are here, as well as your parents, Charles and Cecilia Clarke, 
and your sister, Caitlin Clarke. We welcome all of them. Family 
support is essential in these positions. You will all be put 
under great time pressure. There will be too many times when 
you're not going to be able to get home as promised, and we ask 
your families for their service when we confirm you for your 
service.
    At this point, I think before I ask the questions that are 
traditionally asked, I'm going to call upon Senator Thurmond 
for his opening statement. Following that, I will ask the 
nominees the standard questions we ask all our nominees, and 
then we are going to call upon our colleagues to introduce our 
nominees. Senator Thurmond, please proceed.

              STATEMENT OF SENATOR STROM THURMOND

    Senator Thurmond. Thank you very much. Mr. Chairman, I join 
you in welcoming Dr. Zakheim, Mr. Abell, and Ms. Clarke. Each 
of them has had a long and distinguished career, either in the 
private sector or within the government, and I do not expect 
any surprises on their nominations.
    I am especially pleased by Charlie Abell's nomination to be 
the Assistant Secretary of Defense for Force Management Policy. 
Charlie has been truly professional in carrying out his 
responsibilities as a staff member of the Armed Services 
Committee. He was instrumental in formulating many of the pay 
and benefit programs that have started to reverse the 
recruiting and retention programs in our military services. I 
only regret that the committee's retention program was not 
enticing enough to keep him here on the committee staff.
    To each nominee, I congratulate you on your nomination and 
on your superb record of public service. Your willingness to 
serve our Nation in the challenging positions for which you 
have been nominated speaks highly of you. I wish you all 
success.
    Thank you, Mr. Chairman.
    Senator Levin. Thank you, Senator. We're going to move 
directly to the introductions. Let me call first on Senator 
McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Senator Levin, Senator 
Thurmond, members of the committee. I have known all three of 
the nominees. Dr. Zakheim and I had a professional relationship 
for many years.
    I am especially here on behalf of Victoria Clarke, who 
will, as you mentioned, be the voice of the Department of 
Defense. This doesn't mean Secretary Rumsfeld can't speak for 
himself, which he does very eloquently, but obviously, the job 
of spokesperson is one that requires talent and skills and a 
certain degree of sensitivity, particularly when we are faced 
with crises, as we have experienced just recently, some of 
which entailed the risk or even loss of American lives.
    I've known Victoria Clarke and have had the privilege of 
working with her since 1983. She has been able to balance the 
responsibilities of a true professional and wife and mother. 
She not only, I believe, will be an excellent member of the 
Bush team, but she will also be a role model to other women in 
America as she has moved up the ladder of success to this very 
important position.
    I recommend her highly. She's a very dear and beloved 
friend of mine, and I'm very proud of her at this moment that 
she will take over these very difficult and awesome 
responsibilities. I hope my colleagues will consider her 
positively and I look forward to working with her in the years 
ahead.
    I thank you, Mr. Chairman. I thank you for allowing me to 
speak.
    Senator Levin. Senator McCain, thank you.
    Senator Hutchinson.

              STATEMENT OF SENATOR TIM HUTCHINSON

    Senator Hutchinson. Mr. Chairman, I am very honored today 
to be able to appear before the committee and to introduce 
someone who doesn't need an introduction to this committee, 
President Bush's nominee to be Assistant Secretary of Defense 
for Force Management Policy, Charlie Abell, one that we all 
love dearly. I understand how lonely Secretary Rumsfeld is 
getting these days, but I seriously considered putting a hold 
on the nomination if it would have given us a chance of keeping 
Charlie around. I would ask unanimous consent that a more 
lengthy introduction be included in the record.
    Charlie served in the Army, in the enlisted ranks, in 1967, 
became an officer, served two tours in Vietnam, and is highly 
decorated. The distinguished medals he's received include the 
Legion of Merit, 4 Meritorious Service Medals, the Purple 
Heart, 2 Bronze Stars for Valor, 14 Air Medals, including 2 for 
valor, the Army Commendation Medal for Valor, and the Combat 
Infantry Badge. So he is highly decorated. But more than that 
is he joined our staff, and I've had the opportunity to serve 
with him for the last 2\1/2\ years.
    We all know him to be knowledgeable, professional, and 
totally dedicated. He is committed to the welfare of our men 
and women in uniform. Having had the opportunity to work with 
him as chairman of the Personnel Subcommittee, I am enthused 
about his new opportunities, and I know that he will do an 
outstanding job for those he loves and for the country he 
serves.
    [The prepared statement of Senator Hutchinson follows:]
              Prepared Statement by Senator Tim Hutchinson
    Mr. Chairman, it is an honor for me to appear before the committee. 
Today, I have the privilege of introducing President Bush's nominee to 
be the Assistant Secretary of Defense for Force Management Policy, Mr. 
Charles S. Abell.
    In the 2\1/2\ years that I have worked with Charlie, I have learned 
what so many of our colleagues already knew--that Charlie is one of the 
most patriotic, dedicated, and hardworking public servants in the 
Nation's capital.
    For those who do not know Charlie personally, let me tell them 
something about his background.
    Charlie joined the enlisted ranks of the Army in 1967--it was not 
long before he became an officer. He served two tours in Vietnam as 
both a Cobra helicopter pilot and as an infantry platoon leader.
    After Vietnam, Charlie served in numerous command and staff 
positions within the Army, including Congressional Affairs Officer for 
the Deputy Chief of Staff of Personnel and as a member of the Army 
Legislative Liaison Office.
    The decorations he earned during his distinguished career as a 
soldier include the Legion of Merit, 4 Meritorious Service Medals, the 
Purple Heart, 2 Bronze Stars for Valor, 14 Air Medals including 2 for 
valor, the Army Commendation Medal for Valor, and the Combat 
Infantryman's Badge.
    After retiring as a Lieutenant Colonel, after 26 years in the Army, 
Charlie joined the staff of this committee.
    As the lead staffer on the Personnel Subcommittee, which I now have 
the privilege of chairing, he was responsible for issues concerning 
military readiness and quality of life. Included in that not-
insignificant portfolio are the topics of manpower; pay and 
compensation; health care; personnel management issues affecting Active 
Duty, Reserve and civilian personnel; and nominations, both military 
and civilian.
    During his tenure here on the Hill, Charlie has worked with the 
present, and former, members of this committee to achieve great things 
for our men and women in uniform and for our Nation's military 
retirees. Those accomplishments include:

        <bullet> Significant pay increases for Active Duty and Reserve 
        service members;
        <bullet> Improving recruiter access to our Nation's high 
        schools; and,
        <bullet> Enactment of the Warner/Hutchinson Tricare-For-Life 
        plan, with which our Nation will finally fulfill the decade's-
        old promise of lifetime healthcare for those who choose to make 
        a career of the Armed Forces.

    Now, Charlie is in the position, if confirmed, to take the next 
logical step in an already distinguished career of public service. From 
his new vantage point across the Potomac he will be able to build on 
the successes he helped over the last 9 years on behalf of millions of 
men and women in uniform, their families, and military retirees.
    If confirmed, Charlie will serve as Secretary Rumsfeld's senior 
policy advisor on matters concerning the management of military and 
civilian personnel and the welfare of their families.
    He will promulgate policies relating to recruiting, retention, 
career development, compensation, quality of life, equal opportunity 
and other force management concerns.
    By forwarding to us the nomination, President Bush has publically 
declared to the Nation that he has every confidence that Charlie is the 
best man for the job. For someone who's relatively new to this town, 
that decision marks our President as an excellent judge of character 
and a pretty fast learner.
    Mr. Chairman, ladies and gentlemen of the committee, my fellow 
Americans, I present to you Mr. Charles S. Abell.

    Senator Levin. Senator Hutchinson, thank you very much.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman. I want to welcome 
all the nominees, but I'm particularly pleased and privileged 
to be able to introduce Dr. Dov Zakheim.
    One of the best ways to take a measure of a person is to 
debate that person on important issues of great consequence to 
the Nation, and I had that opportunity last fall at Duke. I 
became impressed, as we all will become impressed, with Dov's 
intelligence, his patriotism, and his dedication to this 
country. We don't agree on everything, but I believe this 
committee will agree that he is a superbly qualified and 
prepared nominee to become the next Comptroller of the 
Department of Defense.
    Dr. Zakheim has an extraordinary academic record--after 
graduating, summa cum laude, from Columbia University, he 
earned his doctorate in economics and politics from Oxford 
University. Dr. Zakheim's public career began at the 
Congressional Budget Office, where he was an analyst. In the 
1980s, he served in a number of senior Defense Department 
positions. So he takes great experience to this task.
    He became, in 1985, the Deputy Under Secretary of Defense 
for Planning and Resources. He knows the Department of Defense, 
and he will bring that experience and that intellect to bear on 
critical issues of financial management of the Department of 
Defense.
    His skill has been recognized by both Democratic and 
Republican administrations. The Clinton administration 
appointed him in 1997 to the Task Force on Defense Reform, and 
he has had numerous significant positions.
    Dr. Zakheim twice has been awarded the distinguished Public 
Service Medal from the Department of Defense. He received the 
CBO Director's Award for Outstanding Service, the Director's 
Award for Outstanding Service for his present firm, System 
Planning Corporation. He is eminently qualified and prepared 
for the difficult challenges of Comptroller. I know he will 
give his all, and he will be tireless in his efforts to improve 
the management of the Department of Defense. I would urge his 
rapid approval. Thank you.
    Senator Levin. Senator Reed, thank you very much. We will 
start with the opening statements now of our nominees, if they 
have opening statements. Why don't we call on you first, Dr. 
Zakheim?

STATEMENT OF DR. DOV S. ZAKHEIM, NOMINEE TO BE UNDER SECRETARY 
                    OF DEFENSE, COMPTROLLER

    Dr. Zakheim. Thank you, Senator Levin, and thank you so 
much, Senator Reed, for those very kind words.
    Senator Levin, members of the committee, it is an honor to 
come before you as President Bush's nominee to become the next 
Under Secretary of Defense, Comptroller. I thank President Bush 
and Secretary Rumsfeld for their confidence in nominating me 
for this important position. Many people made this honor 
possible. I especially want to thank my wife, Deborah, and my 
sons and my parents for their love and support throughout my 
career. I will try to keep my remarks brief, and I ask that my 
full statement be included for the record.
    Senator Levin. It will be. Also, I forgot to mention 
Senator Hutchinson's statement will be made part of the record, 
too.
    Dr. Zakheim. Over the years, it's been my good fortune to 
have been guided by sage mentors and thoughtful colleagues. I 
especially appreciate the opportunities that were afford me by 
President Reagan and Secretary of Defense Weinberger during 
their stewardship over America's security, and Secretary 
Weinberger's support ever since then.
    During my service at the Pentagon, I was also privileged to 
work for and with two especially talented and brilliant men, 
Fred Ikle and Richard Perle, who also afforded me wise counsel 
and support over the years. It was thanks to another good 
friend, Dr. Paul Wolfowitz, that I first joined the Pentagon in 
1981, and I'm delighted that he has returned to the Department 
of Defense as Secretary Rumsfeld's deputy.
    This is an important and challenging time for the 
Department of Defense. The Cold War may be over, but the 
international environment is hardly serene. As leader of the 
free world, the United States bears a special responsibility to 
protect, not only its interests, but to support those of its 
friends and allies. Those responsibilities bear most heavily on 
our military personnel, whose welfare must remain our highest 
priority, as well as on their civilian colleagues at the DOD.
    The office of the Under Secretary of Defense, Comptroller, 
is especially critical to ensuring a robust national security 
posture. The Comptroller has to budget and manage funds to 
achieve the greatest payoff from every taxpayer dollar. The 
Department faces many tough choices in the area of strategy, 
military capabilities, as well as infrastructure and support 
activities. We have to allocate scarce budget dollars to give 
our fighting forces the greatest advantage on both current and 
future battlefields as they evolve. I assure you that, if I am 
confirmed, I will do everything possible to get our uniformed 
men and women the resources they need to excel in the difficult 
missions assigned to them.
    If confirmed as DOD Comptroller, I also intend to make 
financial management reform a top priority. We have to improve 
our management, including management information and accounting 
systems. Congress and the American people have to have full 
confidence that the Department maintains the very highest 
standards in managing and accounting for its funds. We also 
have to ensure that our planning, programming, and budgeting 
system remains relevant to the demands of the new century, and 
we have to rigorously pursue economies and efficiencies 
wherever we might find them.
    As one who has spent 6 years on Capitol Hill, I recognize 
and profoundly believe that the security of our country depends 
on wise decisions in both the legislative and executive 
branches of our government. If confirmed, a key goal of mine 
would be to foster a close cooperation between the Department 
of Defense and its oversight committees, in particular. My 
years in the non-partisan Congressional Budget Office taught me 
that, on matters of national security, bipartisan cooperation 
is essential.
    Let me close by saying again how honored I am to have been 
nominated by President Bush for a position of such immense 
importance for America's future security. I pledge to do my 
utmost to fulfill the trust placed in me. Thank you.
    [The prepared statement of Dr. Zakheim follows:]
                Prepared Statement by Dr. Dov S. Zakheim
    Mr. Chairman, Senator Levin, members of the committee, it is an 
honor to come before you as President Bush's nominee to become the next 
Under Secretary of Defense (Comptroller). I thank President Bush and 
Secretary Rumsfeld for their confidence in nominating me for this 
important position.
    Many people made this honor possible. I especially want to thank my 
wife, Deborah, my sons, and my parents for their unwavering love and 
support throughout my professional career.
    Over the years it has been my good fortune to have been guided by 
sage mentors and thoughtful colleagues. I particularly appreciate the 
opportunities afforded me by President Reagan and Secretary of Defense 
Caspar Weinberger during their extraordinary stewardship over America's 
security. Secretary Weinberger has also been especially supportive to 
me since I left the Pentagon, and I will always be grateful to him for 
writing an exceedingly warm foreword to my book, The Flight of the 
Lavi.
    During my service at the Pentagon, I was privileged to work for, 
and with, two extraordinarily brilliant and talented men, Under 
Secretary Fred Ikle and Assistant Secretary Richard Perle. Both have 
afforded me wise counsel and support when I most needed it. It was 
thanks to another good friend, Dr. Paul Wolfowitz, that I first joined 
the Pentagon in 1981, and I am delighted that he has returned to the 
Department as Secretary Rumsfeld's deputy.
    This is an important and challenging time for the Department of 
Defense. The Cold War may be over, but the international environment is 
hardly serene. As leader of the Free World, the United States bears 
special responsibility to protect not only its interests, but to 
support those of its allies and friends. These responsibilities bear 
most heavily on our military personnel, whose welfare must remain our 
highest priority, as well as on their civilian colleagues at the DOD.
    The Office of Under Secretary of Defense (Comptroller) is 
especially critical to ensuring a robust national security posture. The 
Comptroller must budget and manage funds to achieve the greatest payoff 
from every taxpayer dollar. The Department faces many tough choices in 
the areas of strategy, military capabilities, as well as infrastructure 
and support activities. Scarce budget dollars must be carefully 
allocated to give our fighting forces the greatest advantage on current 
and future battlefields as they evolve. I assure you that if confirmed 
I will do everything possible to get our uniformed men and women the 
resources they need to excel in the difficult missions assigned them.
    If confirmed as DOD Comptroller, I intend to make financial 
management reform a top priority. We must improve our management, 
including management information, and accounting systems. Congress and 
the American people must have full confidence that the Department 
maintains the very highest standards in managing and accounting for its 
funds. We also must ensure that our planning, programming, and 
budgeting system remains relevant to the demands of the new century. We 
must rigorously pursue economies and efficiencies wherever they are to 
be found.
    As one who spent 6 years on Capitol Hill, I recognize, and 
profoundly believe, that the security of America depends on wise 
decisions in both the legislative and executive branches of our 
government. If confirmed, a key goal of mine would be to foster a close 
cooperation between the Department of Defense and its oversight 
committees in particular. My years in the non-partisan Congressional 
Budget Office taught me that on matters of national security, 
bipartisan cooperation is essential.
    Let me close by saying again how honored I am to have been 
nominated by President Bush for a position of such immense importance 
for America's future security. I pledge to do my utmost to fulfill the 
trust placed in me. Thank you.

    Senator Levin. Thank you.
    Ms. Clarke.

STATEMENT OF VICTORIA CLARKE, NOMINEE TO BE ASSISTANT SECRETARY 
                 OF DEFENSE FOR PUBLIC AFFAIRS

    Ms. Clarke. Thank you very much, Senator Levin, and members 
of the committee, thank you very much. It is a real honor for 
me to be here today. I am deeply grateful to President Bush for 
nominating me to this position, and to Secretary Rumsfeld for 
giving me the opportunity to serve. I am very grateful to 
Senator McCain for his remarks. They mean a great deal to me.
    As President Bush has said, the Department of Defense is in 
the business of protecting America's freedom, and the essence 
of that freedom demands that we join the American people in a 
discussion of and commitment to how we defend it. This, for me, 
is a matter of patriotism. It is also my professional 
philosophy. This committee knows far better than I that the 
portrait of international security and national defense is 
vastly different today from what it was even just a few years 
ago.
    As Secretary Rumsfeld has made clear, our challenge is 
building a military that fits in that portrait. We must attract 
and retain the very best people to serve. We must use public 
dollars effectively and efficiently, and we must explore the 
use of innovative technologies and policies that promote peace 
and stability. Our challenges change, changing an institution 
whose roots in our communities and our consciousness runs 
deeper than perhaps any other. That demands an aggressive 
program of outreach and education, a national conversation 
about the challenges, the risk, and the solutions.
    If confirmed, I will embrace that challenge in a spirit of 
openness and honesty with this committee, with our men and 
women in uniform, and with the people of the United States, on 
whose support this life-or-death challenge for our country 
ultimately depends.
    That is my professional philosophy. It is also my patriotic 
feeling. I thank the committee, the President, and the 
Secretary for giving me the opportunity to act on it. Thank 
you, Senator.
    Senator Levin. Ms. Clarke, thank you.
    Mr. Abell.

    STATEMENT OF CHARLES S. ABELL, NOMINEE TO BE ASSISTANT 
        SECRETARY OF DEFENSE FOR FORCE MANAGEMENT POLICY

    Mr. Abell. Thank you, sir. Mr. Chairman, Senator Levin, 
members of the committee, I want to thank you and Senator 
Hutchinson and Senator Thurmond for the kind words this 
afternoon. I really appreciate them. I'm honored to have been 
nominated by the President. I'm honored to appear before this 
committee today.
    If confirmed, I will be privileged to serve in a position 
that provides for the personnel readiness of the force and for 
the quality of life for service members, retirees, and their 
families. It will be an awesome responsibility; however, I look 
forward to the challenge.
    Mr. Chairman, I want to take this opportunity to personally 
and publicly thank you for your confidence in my abilities and 
for being a mentor and an inspiration to me during my time here 
on the staff.
    I've had the good fortune to serve with so many of my 
personal heros and those whom I have admired throughout my 
life. I plan to thrill my grandchildren with tales of working 
on important issues with many noted Americans. Being a part of 
this staff--of this great committee--has been a much greater 
experience than I could have ever imagined. I'm excited about 
the opportunity to serve in the Department of Defense and to 
continue to work for soldiers, sailors, airmen, and marines.
    As a result of my position here as one of your professional 
staff members, I'm aware of some of the many critical issues 
and important challenges that I will face as the next Assistant 
Secretary of Defense for Force Management Policy. I also know 
that there are challenges that are not yet apparent to me. Mr. 
Chairman, if confirmed, I will eagerly accept each of these 
challenges that I will face. I pledge to you and to the men and 
women who serve our nation that I will work hard to meet these 
challenges. I will conduct my dealings with the force, my 
colleagues in the Department of Defense and the administration 
and Congress in an open and direct manner.
    As the members of this committee know, I prefer to be 
forthright and open when dealing with any issue. If confirmed, 
I will be the professional this committee has come to know.
    As excited as I am for the opportunity that awaits me, 
leaving the committee staff will be difficult. I've worked on 
the staff of this committee for more than 8 years. I recall the 
pride and honor I felt when Senator Thurmond hired me. I fondly 
remember my first official trip as a member of the committee 
with you, Mr. Chairman. I've had extraordinary opportunities to 
be a part of history and to meet some of the most influential 
and important people in the world. I've been enriched beyond my 
greatest expectations.
    I will find another occasion to thank my fellow staff 
members, but I would be remiss if I did not publicly 
acknowledge the very positive impact that my staff director, 
Les Brownlee, has had on my life. As everyone knows, this 
gentleman is truly unique, and I owe much of what I am today to 
this friendship and his tutelage.
    If confirmed, Mr. Chairman, I will serve the soldiers, 
sailors, airmen, and marines--active, Reserve, retired--and 
their families to the best of this ability. I will also miss 
this committee. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Mr. Abell. Senator Levin, thank 
you for initiating this hearing on time. I had to testify 
before another committee of the Senate. I might just start my 
opening remarks following your very thoughtful, very insightful 
statement to the committee.

           STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. We are very proud of you, as we are of our 
professional staff. We take pride in this committee. Through 
the 23 years that I've been privileged to be a member--my 
colleague, Senator Levin, and I came to the Senate together 
these many years ago, almost a quarter of a century--this 
committee has enjoyed the finest of professionals on its staff 
throughout these years, and they have gone on to positions of 
great responsibility, not only in the public sector, but the 
private sector. You stand preeminent among those who have 
served this committee.
    I think it would be important for those in attendance today 
just to know a few facts. You started your career as an 
enlisted soldier, a private, and concluded with your retirement 
as a lieutenant colonel. You served as a Cobra attack 
helicopter pilot. You were decorated as an officer who led an 
infantry platoon, an infantry company, and attack helicopter 
units during two tours in Vietnam. I remember that war well 
because I was then Secretary of the United States Navy, and I 
know the personal sacrifice that all those who wore the uniform 
during that period made.
    Your decorations include the Legion of Merit, 4 Meritorious 
Service Medals, the Purple Heart, 2 Bronze Stars for Valor, 14 
Air Medals, the Army Commendation Medal for Valor and the 
Combat Infantryman's Badge. I think that says it all. After 
your 26-year Army career, you joined the committee in 1993, and 
you have been a most valuable member of our team. So we wish 
you well.
    I am confident that the Senate will give you the advice and 
consent the President has sought favorably on your nomination. 
Would you at this time kindly introduce your family who are 
present in the hearing room?
    Mr. Abell. Sir, I am accompanied by my wife, Cathy.
    Chairman Warner. We welcome you. Thank you, sir.
    Now, Dr. Zakheim, I've come to know you, through the years, 
with your distinguished career, and you served with the 
Congressional Budget Office--that's an experience, isn't it?
    [Laughter.]
    --and in the Department of Defense during the Reagan 
administration in a number of senior positions from 1981 to 
1985. From 1985 to 1987, you served as Deputy Under Secretary 
of Defense for Planning and Resources and played an active role 
in the planning, programming, and budget process. In that 
capacity, you successfully negotiated arms cooperation 
agreements with various U.S. allies.
    Subsequently, you served two terms as the President's 
appointee to the United States Commission for the Preservation 
of America's Heritage Abroad. In 1997, former Secretary of 
Defense Cohen named you to the Task Force on Defense Reform and 
later named you to the first Board of Visitors of the 
Department of Defense Overseas Regional Schools and the Defense 
Science Board Task Force on Impact of DOD Acquisition Policies 
and on the Health of the Defense Industry.
    You currently serve as Corporate Vice President of Systems 
Planning Corporation, a high-technology research analysis and 
manufacturing firm. Also, you're Chief Executive Officer of SPC 
International Corporation, which specializes in political, 
military, and economic consulting and international analysis--
again, a very distinguished public service career. Once again, 
you volunteered to go back to serve your country with a most 
exciting team. So I commend you.
    Would you introduce the members of your family, please?
    Dr. Zakheim. Yes, Mr. Chairman. My wife, Deborah, sitting 
right behind me and, next to her, one of my sons, Roger.
    Chairman Warner. We welcome you. As I've said many times in 
the course of these hearings, it is a family affair, serving in 
the Department of Defense. There are no hours. The clock 
knoweth no finality. Days go into nights and nights into day. 
But I must say it was one of the most exciting challenges of my 
life, the 5 years, 4 months, and 3 days I spent in that 
building. So when I speak to each of you, I speak to your 
families, because they are very much a part of the team.
    Now, Ms. Clarke served as Press Assistant to Vice President 
Bush's office early in the 1980s, and later served as Press 
Secretary to Senator McCain. That's a challenge.
    [Laughter.]
    I say that with respect to our colleague--working in both 
the House and Senate offices and then served as Assistant U.S. 
Trade Representative for Public Affairs and the private-sector 
liaison under Ambassador Carla Hills in 1992, Press Secretary 
for President George Bush's re-election campaign in 1992. Ms. 
Clarke is currently the General Manager of the Washington 
Office of Hill and Knowlton, one of the most distinguished and 
venerable institutions of its type in the Nation's capital, and 
we welcome you. Would you kindly introduce those who have come 
to join you today?
    Ms. Clarke. Thank you, Mr. Chairman. I have my parents, Dr. 
and Mrs. Charles Clarke; my sister, Caitlin; my husband, Brian 
Graham; my son, Colin, who is having his sixth birthday 
tomorrow; Devon, who is four; Charlie, who is a little over 
two; and my friend Lorraine Voles, who is graciously helping us 
out today.
    Chairman Warner. That's lovely. Those kids are beautifully 
well-behaved and turned out, as we say in the military, for 
parade dress.
    Well, we thank you for considering, again, public service 
and for undertaking it as an exemplary parent with the duties 
at home and the duties in the office, and all three of you are 
serving on, I think, what will be one of the most exciting 
teams--I don't say this, Republican and Democrat, because I've 
worked with all the teams in these 23 years we've been here--
but you're going to be on an exciting team and the cutting edge 
of history in our Department of Defense. So I wish you well.
    Now, the committee has standard questions which we propound 
to each of our nominees, and I will do so on behalf of the 
committee and ask each of you to respond.
    Have you adhered to applicable laws and regulations 
governing conflict of interest? Mr. Abell.
    Mr. Abell. Yes, sir.
    Chairman Warner. Dr. Zakheim.
    Dr. Zakheim. Yes, sir.
    Chairman Warner. Ms. Clarke.
    Ms. Clarke. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Ms. Clarke. No, sir.
    Dr. Zakheim. No, sir.
    Mr. Abell. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
the deadlines established for requested communications, 
including questions for the record in the hearings? Charlie, I 
want you to answer that loud and clear.
    [Laughter.]
    Mr. Abell. Yes, sir.
    Dr. Zakheim. Yes, sir.
    Ms. Clarke. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Ms. Clarke. Yes, sir.
    Dr. Zakheim. Yes, sir.
    Mr. Abell. Yes, sir.
    Chairman Warner. Would those witnesses be protected from 
reprisal for their testimony or briefings?
    Ms. Clarke. Yes, sir.
    Dr. Zakheim. Yes, sir.
    Mr. Abell. Yes, sir.
    Chairman Warner. Senator Levin, why don't you start the 
questioning period here on behalf of the membership?
    Senator Levin. Thank you, Mr. Chairman. Dr. Zakheim, does 
the administration plan to file a detailed budget for defense 
for the year 2002?
    Dr. Zakheim. To the best of my knowledge, they plan to do 
so. I don't have those details myself, obviously.
    Senator Levin. Do you know when they plan to do that?
    Dr. Zakheim. I do not at this time.
    Senator Levin. Do you know whether the administration plans 
to request any supplemental funding for defense for fiscal year 
2001?
    Dr. Zakheim. I believe that is under active consideration, 
but I don't know the final answer to that one, sir.
    Senator Levin. When will that decision be made, whether or 
not to do it? Do you know?
    Dr. Zakheim. I don't know the exact date. If confirmed, I 
suspect that I'll be part of that decision-making process.
    Senator Levin. Do you have any idea as to how much funding 
would be requested, if it's requested?
    Dr. Zakheim. Not at this time, sir, no.
    Senator Levin. You've written in the past, Dr. Zakheim, on 
the need for additional base closures.
    Dr. Zakheim. Yes, sir.
    Senator Levin. Do you believe there is excess 
infrastructure in the Defense Department today? If so, are 
there unfunded needs within the Department that could benefit 
by redirecting resources away from the excess infrastructure?
    Dr. Zakheim. I believe the infrastructure is in excess of 
the force structure, yes, sir.
    Senator Levin. Does that mean it's in excess, you believe, 
of what is needed?
    Dr. Zakheim. I believe that it is. I think we have to look 
closely at the details, of course. But yes, I believe that 
there is an excess.
    Senator Levin. Have previous rounds of base closures, in 
your opinion, resulted in significant reductions in DOD costs 
that have made resources available for higher priorities?
    Dr. Zakheim. As I understand it, GAO and CBO have said as 
much. They have never put a dollar figure on that, though.
    Senator Levin. Do you believe that it is true that there 
have been significant savings over time from previous rounds of 
base closures?
    Dr. Zakheim. I haven't done the analysis. I believe there 
are savings; but since I haven't done the numbers, I don't know 
how big they are.
    Senator Levin. Dr. Zakheim, you've also written that 
peacekeeping is a ``strategically marginal'' use of U.S. 
defense funds. You have advocated, ``withdrawing from much of 
the peacekeeping business,'' so that funds can be used for 
other needs. Do you believe we should withdraw our forces 
unilaterally from the following places: Bosnia, Kosovo, Sinai?
    Dr. Zakheim. With regard to Bosnia and Kosovo, I think that 
it's a function of consultation with allies. The ``unilateral'' 
word is key here. We shouldn't do anything unilaterally. The 
events in the last few months, particularly in Macedonia, 
demonstrated that this is really a very sensitive region. I 
believe the same holds true for the Sinai. Clearly, both Israel 
and----
    Senator Thurmond. Speak a little bit louder. I didn't hear 
you.
    Dr. Zakheim. I'm sorry, Senator. What I just, Senator--can 
you hear me now, sir? What I just said was that the word 
``unilateral'' is key here, that on Kosovo and Bosnia, we can't 
just pull out without consultation with allies. The events in 
Macedonia have indicated how sensitive that region is. So these 
issues are a function of what is happening on the ground.
    I believe the same applies to the Sinai. The Israelis and 
the Egyptians both are deeply concerned about how we approach 
this process. So it will certainly have to involve 
consultation, Senator.
    Senator Levin. I'm glad to hear those answers. It is 
somewhat reassuring, both given prior positions, but, in any 
event, given current circumstances, I think those are 
reassuring answers, at least for me.
    Dr. Zakheim, when there are differences between the amounts 
that are authorized by us and the amounts that are appropriated 
by the appropriators for specific programs, will you work with 
the defense committees of Congress to identify and resolve such 
differences between authorization and appropriation reports 
prior to obligation?
    Dr. Zakheim. We have to, and I know it's been the 
Department's practice all along, to try to work with all the 
oversight committees and resolve these matters as amicably and 
as efficiently as possible, and I am committed to consultation 
with the committees on a case-by-case basis to resolve these 
matters to everyone's satisfaction.
    Senator Levin. Thank you. On the financial management end 
of your work, you and we all know the Department faces serious 
financial management problems. Because these problems are 
widespread, they can't be solved at one time, but require 
higher-level attention. I was pleased to read in your answers 
to the committee's advance questions that you are, in your 
words, fully committed to improve financial management in the 
Department of Defense. Could you give us just an idea, in your 
judgment, as to what needs to be done. What steps do you plan 
to take to improve financial management at the Department?
    Dr. Zakheim. Senator, there really are some very serious 
problems, whether it's a matter of clean audits, whether it's a 
matter of proper training, whether it's a matter of inventory 
management or management information. I'm coming out of the 
private sector, and when you're in the private sector, these 
sorts of matters are second nature. You can't run a business 
without having the kind of information that is being sought 
from the Department of Defense.
    If I were confirmed, it's a top priority for me to do a 
number of things--first, to reorganize the Comptroller's office 
to bring in some first-rate people as deputies to the 
Comptroller so that we can have focus on management reform and 
on management initiatives.
    Second, I would hope, if confirmed, to bring in outsiders, 
people with a financial management background, former CFOs and 
the like, who could provide what you might call mid-term--mid-
course guidance on a regular basis to see how we're doing.
    Finally, I want to work with this committee and with other 
interested Members of Congress who have very valuable input and 
have made a very big difference over the years in passing a 
variety of financial management acts that have to be really 
fulfilled.
    Senator Levin. Just one last question for you and my time 
is up. Do you have any plans to reorganize the Office of the 
Comptroller; and if so, what types of changes would you make?
    Dr. Zakheim. If confirmed, Senator, I would very much like 
to do that. I believe that it would be in everyone's best 
interest to have at least one, and probably two, Deputy Under 
Secretaries who focus specifically on financial management 
issues, and then a third one who focuses on program budget 
issues. Financial management is simply not being dealt with as 
smoothly and as capably, in my view, as has the program budget 
side, and it really needs a lot of work. We need competent, 
excellent people to do this, and I'm committed to doing this, 
if confirmed.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin. For the record, 
the chair of this committee, together with the ranking member, 
has the responsibility to review the material that is forwarded 
on all nominees from the White House to the United States 
Senate through this committee. Senator Levin and I have 
reviewed that material. We took it upon ourselves to have a 
briefing in executive session on three nominees, and that has 
been completed. Do you have anything further to add--but we 
reviewed this material and it met our criteria. Am I correct in 
that?
    Senator Levin. There may be an additional executive 
session, if possible.
    Chairman Warner. I'm going to momentarily defer to my other 
senators, but I cannot let go saying that, one, a very valued 
staff member of this committee is to do a transfer from this 
committee to the Department of Defense to work under your aegis 
as your principal deputy. We wish to recommend him very highly. 
He is an extraordinary, able, well-trained professional, and 
it's been my experience--and I think my staff, who share these 
views--that the staff of the Pentagon and your department have 
served their country very well. While you certainly have the 
right to do certain reorganization, we would want you to do so 
knowing that this committee has very high respect for their 
performance in their respective duties.
    Senator Levin, do you have a statement? Then I'll yield to 
Senator Bunning, because I'm going to stay here for a period of 
time. Senator, do you have a statement you'd like to make? Just 
a brief announcement?
    Senator Thurmond. I will pass on the opportunity to ask 
questions of our nominees. I have complete confidence in their 
abilities and will support their nominations.
    Chairman Warner. I thank you.
    Now, Senator Bunning, you take my----
    Senator Bunning. Thank you, Mr. Chairman. First of all, I 
want to thank all of you for coming.
    The most important thing I can convey to you today is the 
importance of providing, here in Congress to the members of 
this committee, timely, accurate information. If an 
administration official is asked a question, we need that 
official to provide us with accurate information or we cannot 
do our jobs. If confirmed, I look forward to working with all 
of you.
    Dr. Zakheim, there have been many reports of the 
deterioration of our readiness in the armed services. Do you 
believe that the proposed budget is sufficient to adequately 
resource our force at their current levels of commitment?
    Dr. Zakheim. Well, Senator, Secretary Rumsfeld is 
conducting the strategic review right now, and the budget 
submission for 2002 is going to reflect that review. So, in a 
sense, I can't really comment on the relationship other than to 
say that, clearly Secretary Rumsfeld is going to take into 
account exactly the concerns you've talked about.
    Senator Bunning. It's my understanding that there's going 
to be a request from the Department of Defense for a 
supplemental appropriation bill. Do you have that same 
understanding?
    Dr. Zakheim. I believe that it is under active 
consideration. I'm not aware yet of any timing or sizing of it.
    Senator Bunning. You're not aware of any sizing or timing.
    Dr. Zakheim. Not yet, no, sir.
    Senator Bunning. Gee, that's funny, because we are, and 
you're about to ask us to confirm you. You're not in any loop 
at all?
    Dr. Zakheim. Well, Senator, again, I'm briefed. People have 
tried to educate and get me up to speed, but on this particular 
decision loop, I am simply not aware of any final decision on 
either of those matters, Senator.
    Chairman Warner. The practice of the Department, Senator, 
is the nominee has to await the confirmation process before the 
Secretary of Defense can call on you to be an active 
participant in the decision making.
    Senator Bunning. I understand that. But, in other words, if 
he's had a briefing on the proposed budget and/or a possible 
supplemental, I thought maybe he might share some of that 
information.
    Today's Washington Times reports the Secretary of Defense 
is forming an executive committee of senior civilian leaders, 
including the Comptroller, to implement the transformation 
policy. What would be the specific function of that committee, 
and what would the Comptroller's role be?
    Dr. Zakheim. Again, I have not been given details as to 
exactly what the committee will do, except in the most general 
sense that you described. The Comptroller is also a chief 
financial officer and, in that respect, obviously has input 
into acquisition policy. I presume that that is what the 
article is alluding to.
    Senator Bunning. Senator Levin brought up BRAC and a 
possibility of another BRAC, and you were pretty firm in your 
statement that you didn't have a handle on any savings, if they 
occurred, from the first two rounds, other than to say that you 
thought that some savings might have occurred.
    Before I ever look at another BRAC, you're going to have to 
convince me that there were actual savings in the first two 
rounds. I don't think there's any question that the size of the 
force doesn't fit the facilities; but sometimes--as I just 
stopped on Midway Island on the way home from Taiwan--sometimes 
what is shut down is still operating. I say that only to point 
out that Midway had been BRAC-ed in 1996; and yet there is a 
big need on Midway for refueling and doing a lot of other 
things that the military needs to have done.
    So I want you to be prepared, if you are ready to recommend 
BRAC to us again, that you show us some substantial savings 
from the first two rounds. Let me ask a couple of other 
questions.
    Chairman Warner. Senator, you take such time as you need 
and then we'll turn to our other colleague momentarily.
    Senator Bunning. Yes, I want to ask our staff member--a 
number of years ago, General Mundy, the Commandant of the 
Marine Corps, proposed to no longer enlist anyone who is 
already married. One of the objectives behind this was to 
reduce the pressure placed on newly-enlisted personnel, 
particularly given the high number of days per year they are 
deployed away from home--and I can speak from personal 
experience, with a son in the Air Force. Do you feel that this 
would be an effective way to reduce stress on our enlisted 
personnel during their initial enlistments?
    Mr. Abell. Senator, the short answer is no. I think it's a 
fact that more and more of our young soldiers, sailors, airmen, 
and marines are enlisting with existing families. Even a 
greater number acquire a family shortly after enlistment. 
You're right, it is stressful. I have a great deal of 
confidence in the abilities of those young men and women to 
handle that stress, and I have a great deal of confidence in 
their chain of command to assist them in that endeavor.
    Senator Bunning. Then why are we falling short in every 
service on our enlistment goals?
    Mr. Abell. Sir, I think recruiting--recruiting especially, 
but retention, as well--is a very tough job. Currently, we 
enjoy a very robust economy. I think that probably contributes 
more. The opportunities available to young men and women today, 
especially the high quality young men and women we seek for the 
military, are probably unmatched. I think that is the 
difficulty, not so much family.
    Senator Bunning. Do you think our current force structure 
is large enough to assume the commitments that we have made 
presently?
    Mr. Abell. Senator, I think there's no doubt the current 
force structure is stressed and overtaxed by its missions. 
Whether it's the right size or not, I think, is going to be one 
of the outcomes that we will see from Secretary Rumsfeld's 
several studies, and I look forward to seeing the details of 
that--of those studies before I could give you a definitive 
answer on that.
    Senator Bunning. OK. Ms. Clarke, the Department of Defense 
usually uses individual Social Security numbers as their 
service-identification numbers. Recently, there have been some 
reports of identity theft from active duty military members. 
Given the Social Security numbers may be more accessible to 
outside parties, Privacy Act requirements notwithstanding, how 
do you plan to minimize the danger to service members from this 
crime?
    Ms. Clarke. Senator, I don't have enough information about 
that particular issue to address today, but I do think, when it 
comes to the Privacy Act, that one of the utmost priorities of 
my department is to respect and protect the privacy of 
individuals. I will do everything possible, if confirmed, to 
ensure that I and my staff are fully trained and sensitized to 
that protection and respect we should give to individual 
privacy. I would be happy to take the question for the record 
and get back to you with an answer.
    Senator Bunning. Well, the question I have is, why does the 
military continuously use the Social Security numbers as an ID 
number, when most of the banks, most of the driver's licenses, 
most other people are starting to phase that out since the 
access to the Social Security number and the maiden name of the 
mother allows access to your Social Security records?
    Ms. Clarke. I don't have an answer for you, Senator, but I 
would be happy to get you one.
    [The information follows:]

    The Department of Defense shares your concern about the potential 
misuse of social security numbers and the need to protect the privacy 
of the men and women of our Armed Forces. While Defense Department 
policies and practices do not appear to have contributed to misuse, we 
will continue to be vigilant in safeguarding such information.
    The issue of using the social security number (SSN) as the service 
identification number, a practice first begun in the 1960s, was 
recently studied by both the Defense Department and the General 
Accounting Office. In addition to identity theft, we studied the 
potential use of the SSN to obtain information that could be used 
against captured or detained personnel. However, given the ubiquitous 
access to personal information via the Internet, the senior officials 
who studied this issue determined that removal of the SSN and 
substitution of another number would not remove or even markedly reduce 
this threat. Further, any such attempts would likely waste hundreds of 
millions of dollars while not providing any significant protection for 
servicemembers.
    This issue poses a difficult challenge, but we remain committed to 
protecting the privacy of servicemembers and will vigilantly safeguard 
personal information. We take very seriously our responsibility to 
protect social security numbers and limit access to only those uses 
permitted by law.

    Senator Bunning. OK. During the recent incident with the 
U.S.S. Greeneville, the Navy was criticized for initially 
providing misleading and inaccurate information. How do you 
plan to address this in similar situations in the future?
    Ms. Clarke. Senator, if confirmed, I hope one of the mottos 
of my department will be ``maximum disclosure with minimal 
delay.'' I think one of the priorities for the Department is to 
disseminate news and information, the good and bad, as quickly 
and as accurately as possible.
    Senator Bunning. We are counting on you to do just that.
    Ms. Clarke. Yes, sir.
    Senator Bunning. Thank you, Mr. Chairman.
    Chairman Warner. I thank you, Senator, and particularly for 
the question about Social Security. I think that this committee 
will follow your lead on that issue and look into that question 
with some thoroughness.
    Senator Bunning. Thank you, because, as Chairman of the 
Social Security Subcommittee in the other body, that was one of 
my primary concerns, and that now you can tell the bank to go 
you-know-where if they ask for your Social Security number.
    Chairman Warner. We will look into that.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman. I, too, am pleased 
to be participating in this hearing and want to welcome the 
families of the nominees here to the hearing, and to tell you I 
was impressed with introductions that were given by our 
Senators of each one of you, which tells me that the President 
made some good choices of well-qualified people, and I look 
forward to working with you as we move forward with this new 
administration.
    In advance questions that we received, Dr. Zakheim, you 
provided the committee--you indicated that you expect Secretary 
Rumsfeld to charge you--and I'd like to quote this loud and 
clear--``to do everything possible from every budget dollar.'' 
That is a high calling, and I agree with your assessment that 
accurate and timely financial management information is 
critical for managers across the Department to ensure 
accountability and the most effective use of taxpayers' 
dollars, and I then realize why you suggested reorganization of 
some of the top-level people under you.
    My question is a large one that has been around. I would 
just ask you one question, and then ask some of each of the 
others. My question to you, Dr. Zakheim is, how long do you 
think it will take before the Department can provide Congress 
with an accurate accounting of DOD expenditures?
    Dr. Zakheim. I can answer it the following way. I have been 
told that it will take many years to do that. Many years is not 
a good enough answer for me. I would hope that Congress will be 
in a position to receive cleaner audits, far more timely 
information, certainly within the next few years--in other 
words, hopefully, if confirmed, while I'm still around there.
    Senator Akaka. I do, too. I've enjoyed working with you, 
Mr. Abell, during the past few years, when I was not a member 
here on this committee, but we worked in other ways, and I 
really appreciate what you've done to help me in other ways. 
I'm sure that you will do your best to address the challenges 
facing the Assistant Secretary for Force Management and Policy.
    I agree with your assessment that, while recruitment is 
essential, retention is critical to force readiness. In your 
answers to questions by the committee, you referred to 
``balancing deployments and military training requirements with 
the stability necessary for long-term health of military 
families.'' I took that off--a quote. So my question to you is, 
if confirmed, how would you address this issue?
    Mr. Abell. Well, Senator, this is a tough issue. It is one 
that the military services have talked to us about while I've 
served on the committee for many years. We--the committee and 
Congress--have put into effect some legislation requiring that 
the deployments now be tracked on an individual basis and that 
the individuals be apprised of how many days they have been 
deployed, and that those deployments be managed by senior 
officers.
    I think as this procedure gets implemented, just getting 
visibility on the subject will help a lot. But as we do get the 
visibility of how many days soldiers, sailors, airmen, and 
marines are actually deployed, we will get a good feel for the 
types of units, the types of military specialties and the types 
of missions that are consuming these service members' time. I 
think then we'll be able to make some judgments as to how to 
better balance the needs of the family, the needs of the 
individual, and the needs of the service.
    Senator Akaka. Thank you very much. Ms. Clarke, I liked 
your proposal that, if confirmed, your motto would be, and I 
quote, ``maximum disclosure exposure and minimum delay.'' I 
agree that accuracy is very important in dealing with the 
dissemination of information, as evidenced by recent events 
that have occurred in the past few months. In my case, many of 
these have occurred in the Pacific and Asian areas. How do you 
propose to engage and gain the support of the public as the 
Department of Defense addresses the threats of the 21st 
century?
    Ms. Clarke. I think there are two answers, Senator. The 
first part is to make sure, on a regular, consistent basis, in 
as timely and accurate a fashion as possible, you give them 
complete information, the good and the bad, about what is going 
on. I think that is an absolute priority.
    At the same time, I think it's critical that we do 
something that probably hasn't been done for quite some time. 
That is, on an ongoing basis, engage the American people, not 
just the men and women in uniform and their families, although 
I think they're absolutely critical as well, but engage the 
American people in a conversation and a dialogue, if you will, 
about the risks we face in the 21st century, about the kinds of 
changes that might be appropriate. The challenges are too 
great, and the issues too serious, not to engage all of them in 
that.
    So if the first motto of the Department, I hope, will be 
``maximum disclosure and minimum delay,'' I hope another motto 
that people will come to think about is ``outreach, outreach, 
outreach.'' I think we should be talking to and responding to 
and educating and making aware everyone we can find. Talk to 
them about the risks, about the solutions, talk to them about 
the commitments these men and women make. It's very telling, 
you asked many questions about the people who are actually 
serving, and the stresses and the pressures on them. I think 
it's very important the American people see, up close and 
personal, the kind of commitment these men and women are 
willing to make, the kinds of challenges they face and the 
kinds of risks they face, as we've seen over the last few 
weeks. Increasingly, there are few people in society who have 
much real-life experience with the military. So I think it's 
really important that we focus on that outreach so they can see 
what's going on.
    Senator Akaka. Thank you very much for your responses, and 
I congratulate you on your nominations. Thank you very much, 
Mr. Chairman.
    Chairman Warner. Senator Reed, I'm going to be the wrap up, 
so I'm going to let all members go ahead. You go right ahead.
    Senator Reed. Thank you very much, Mr. Chairman.
    Chairman Warner. Then to Senator Dayton, and then we'll go 
into another round of questions if there are others.
    Senator Reed. Let me first address a question to Mr. Abell. 
But before I do that, let me associate myself with all the high 
praise that you richly deserve. You've been a key member of 
this committee's staff, and you've served every member with 
great diligence and professionalism, Charlie. It's a mixed 
blessing; we're glad for you, but sorry to see you go.
    Let me address a question. We often spend a great deal of 
time about the recruitment and retention within the uniformed 
services, but I think you're going to be facing a real 
challenge with respect to recruitment of civilian Department of 
Defense officials and retaining a very qualified workforce. I 
wonder if you've given any thought to what you might do.
    Mr. Abell. Yes, Senator, I have. I'm concerned about that. 
There are a number of senior civilians who will be retiring. 
I'm concerned about the developmental programs that enable 
folks to be developed professionally to fill those positions. 
I'm concerned about whether or not Federal civil service is 
attractive to men and women out in America, just like the 
military service is, and I look forward to getting into those 
issues. I'm not as familiar with those as I am with the 
military personnel policies, and so it is going to be a matter 
of some focus to me to roll up my sleeves and get involved in 
it.
    Senator Reed. Well, we have every confidence you will roll 
up your sleeves.
    Dr. Zakheim, again, welcome. One of the major initiatives 
that has been taking place over the last two decades has been 
an attempt to foster more ``jointness'' in the Department of 
Defense, and we have made some progress with uniformed officers 
serving in joint assignments with a requirement for promotion 
to have a joint assignment. But I think in the area of 
management systems and procurement systems, in the financial 
guts of DOD, we have made very little progress in 
``jointness.'' Could you mention how you perceive the problem 
and what your instincts are at this moment?
    Dr. Zakheim. Certainly, Senator. First, again, thanks so 
much for the very kind words. I really do appreciate them.
    Certainly, one cannot say that on financial management 
we've received anything like a Goldwater-Nichols. Of course, it 
was this committee that was very much behind that. We have 
``jointness'' in the military that was unprecedented when I 
came to the Pentagon in 1981. I believe that the only way one 
can achieve anything remotely like that in the financial 
management side of the Department is by conveying the sense of 
high-level attention. The Secretary of Defense is personally 
committed to making this happen. If I am confirmed, I'm 
personally committed to making this happen. I hope to work with 
the team of people who will focus on this full-time.
    In addition, the Secretary of Defense has made it clear 
that he wants the service secretaries to work as a team. One of 
the highest priorities in that team effort is getting 
coordinated financial management. So I believe with that degree 
of top-level involvement, we will make some progress.
    Senator Reed. I know it's very early. In fact, I presume 
you really have been barred from any significant discussions 
about planning as it goes on today in the Pentagon. That is a 
correct presumption, isn't it?
    Dr. Zakheim. Yes.
    Senator Reed. But do you anticipate, given your background, 
that legislation would be required to effectuate the kind of 
integration of financial measures and systems that you 
anticipate?
    Dr. Zakheim. It may well be, in certain respects, and I 
would hope to work with this committee and with other cognizant 
committees to identify those sorts of requirements. It's very 
important that the Department work very closely with Congress 
on these matters. Certainly, if I'm confirmed, I intend to make 
this not just an occasional practice, but a regular one.
    Senator Reed. Thank you very much, Dr. Zakheim. Ms. Clarke, 
best wishes. I'm sure you're going to do a fabulous job.
    Ms. Clarke. Thank you.
    Senator Reed. You also have a problem of ``jointness,'' 
which is you have three services that have their own public 
affairs operations. Do you have a plan at the moment to either 
do more integration or more decentralization, or less?
    Ms. Clarke. Sir, I've actually had the opportunity to meet 
with the heads of public affairs from the three services in my 
private-sector life, and----
    Chairman Warner. Let me interrupt. There are four 
services----
    Ms. Clarke. Yes.
    Chairman Warner. The United States Marine Corps, I say to 
my graduate of the West Point Academy here----[Laughter.]
    Excuse me for the interruption.
    Senator Reed. Mr. Chairman, I obviously stand corrected. I 
don't know what came over me. [Laughter.]
    Chairman Warner. All right. What came over Ms. Clarke? She 
picked right up on the same response. [Laughter.]
    Senator Reed. Well, she's in an awkward position. She has 
to be polite. I should be accurate. Forgive me.
    Senator Levin. Actually, you were really testing Ms. 
Clarke, and she came through.
    Senator Reed. She came through. She was wonderful.
    Senator Levin. It was a very conscious effort. I've seen 
him do that before. He really knew there were four services, 
but he wanted to see just how much you knew. [Laughter.]
    Senator Reed. Well, what I--I misspoke. There are three 
service secretaries. Chairman Warner is right--I misspoke. 
Chairman Warner is always right. That's a good rule on this 
committee, by the way. [Laughter.]
    Ms. Clarke. As I've been told many times by those in the 
Navy, there is no secretary of the Marines, is there--but there 
are four heads of Public Affairs, and they are all very 
talented, very professional people, and I have had the 
opportunity to meet with them. If confirmed, I look forward to 
working with them closely. I think the focus on ``jointness'' 
is absolutely appropriate and absolutely vital, so I look 
forward to working with them.
    I have not thought through--because I did not want to 
presume anything--I haven't thought through the structure, but 
I have thought, in general terms, about trying to find a 
process, trying to find a way to work more closely together.
    Senator Reed. Thank you. Just one final question. Dr. 
Zakheim, you have spent a lifetime studying strategic issues 
and bringing to that study, not just academic theoretical 
instincts, but also the knowledge of budgets and how they work, 
how they're put together. I'm just wondering about your view, 
as we look ahead, the budget you're seeing emerging, is that 
adequate to do modernization and then attempt, if feasible, to 
do some very expensive projects, like national missile defense?
    Dr. Zakheim. Well, the Secretary of Defense wants very much 
to have a top-down approach to this whole matter--that is to 
say, to lay out the strategy and then to coordinate the budgets 
with that strategy. So, in fact, right now, he has a strategic 
review that is ongoing; and hopefully, the budgets and the 
program would then reflect that review. If confirmed, I would 
hope very much to participate in that activity, but we're 
putting first things first.
    Senator Reed. Thank you very much. Thank you, Mr. Chairman.
    Chairman Warner. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. Ms. Clarke, I 
won't use any numbers in my questioning or comments, but I want 
to second what Senator Bunning said about--I'm new to this 
committee, and when I read your remarks there that there is a 
Principles of Information, I made a note to myself to get a 
copy of that, because I'm not aware that--what I imagine they 
must be, and what your remarks have suggested is followed in 
practice. The U.S.S. Greeneville incident, to me, was a classic 
case of providing as little information as absolutely 
necessary. Except for watching the television news, 
investigative reports, and the newspapers, I don't think a lot 
of it would have come to light. So I certainly support his 
comments and urge you to act accordingly.
    Similarly with the bombing of the Iraq radar installations, 
I remember my staff picking that up on CNN and trying to find 
somewhere to call and inquire as I was about to walk into a 
Minnesota defense establishment and not being able to even get 
a courtesy of reply. So I would say good luck to you. You have 
a long way to go.
    Ms. Clarke. Thank you, Senator. I will need the support. 
The Principles of Information, which I'd be happy to provide, 
do state clearly that it's the utmost responsibility to release 
news and information in as timely and accurate a fashion as 
possible. The only time you withhold information, according to 
the Principles, is if it would adversely affect national 
security or it would threaten the privacy or the safety of the 
men and women in uniform.
    I absolutely believe that, as many people say, bad news 
doesn't get better with age; so get it out there, and get it 
out there accurately.
    Senator Dayton. Well, I would like to receive a copy of the 
Principles. My solution would be to get a direct phone number 
for your office. But in either respect, I'm----
    Ms. Clarke. You can have it.
    Senator Dayton.--encouraged by what you said.
    Mr. Abell, I note your comments about the importance of 
recruiting and retaining top-qualified military personnel, and 
I assume that applies to the Department, as well. Could you 
elaborate a bit on what you propose to do, or what you 
contemplate, in terms of--especially in making life better for 
the families of men and women in our service and improving the 
retention of them?
    Mr. Abell. Senator, I think, first, recruiting and 
retention are a matter of constant vigilance. It is my 
experience that anytime that a service takes its eye off of 
either of those two tasks, it is inevitable that they have 
suffered. So I will be, if confirmed, one who pushes for 
maintaining that constant vigilance.
    I also believe that the services are now--have responded 
well to some problems in the recent past and are being very 
innovative and visionary in their approaches to recruiting and 
to retention, and they are to be congratulated. I think the 
results, both last year and the projected results for this 
year--we just had a hearing this morning in the Personnel 
Subcommittee--are very encouraging, and they reflect well on 
the hard work of a lot of people. I think we need to keep 
looking for the fresh way to address these problems with a 
crisp delivery of a good message.
    As for the quality of life of our families--again, very 
important for retention--it is one of the focuses of Secretary 
Rumsfeld's strategic review. I have not been briefed on their 
progress, and I look forward to receiving that brief, if 
confirmed.
    Senator Dayton. I would just note that, in the budget 
process, there were a couple of amendments, including the 
Chairman's, which was adopted, which provided additional funds 
which could be used for, among other purposes, those 
improvements.
    I was at the National Training Center in California during 
the recess and asked a couple of the commanding generals there 
what they thought were the greatest needs. They both--one said, 
``I'm an armaments expert, but the quality of life for the pay 
benefits and standards of living for our families is what would 
be most valuable and supportive of my mission.'' So I look 
forward to your returning and to the administration coming 
forward, whether it's a supplemental appropriation or future 
requests, and really take advantage of the support of the 
members of this committee for those kinds of improvements.
    Mr. Abell. Thank you, sir.
    Senator Dayton. I would add, as part of that--and I noted 
with interest your referencing the health benefits dilemma that 
many reservists and National Guard members face. In Minnesota, 
we have reservists and members of the Guard who were called up 
for a period of 3 to 5 months, and the economic hardships which 
they and their families encountered, health being one of them--
again, I would hope and urge that they not be forgotten when it 
comes to these kinds of financial and other improvements.
    Mr. Abell. I assure you, Senator, I will look at the total 
force.
    Senator Dayton. Thank you. Dr. Zakheim, when Secretary 
Rumsfeld has met with us, he has cited his concern about the 
length of time and increasing length of time from the 
authorization and design of these weapons systems to their 
deployment now, some getting to be some 8 to 10 years. I wonder 
if you've had the chance to think about what kind of financial 
procedures--I know from the standpoint of military contractors 
in Minnesota, it's often very time consuming and contributes to 
these overall delays, getting swift billing and receipts and 
the like.
    Conversely, on the other side, according to Senator Byrd 
and others that have longer experience than I, it's almost 
astronomical amounts of money that can't be accounted for 
within the system. So we have this anomaly that, on the one 
hand, it seems that many of the procedures and requirements 
just extend delays, but they don't end up accounting for the 
money. Do you have a way to reconcile and solve those problems?
    Dr. Zakheim. Well, it's not an easy challenge, Senator. I 
understand that, in the matter of what Senator Byrd is very 
concerned about--and he mentions, I think, $4\1/2\ trillion--
there are technical answers to that question, but I think there 
is more than a germ of truth to his concern. If confirmed, one 
of my highest priorities would certainly be to, in particular, 
work to make sure that the various different sources of 
information are all congruent, because it is my impression--and 
I do have to study this more, Senator--but it is my impression 
that the various--what are called feeder systems and various 
sources of information simply don't speak to each other, and 
that is where a lot of this falls between the cracks.
    As to your first point, Senator, regarding the acquisition 
cycle, I am fully aware of Secretary Rumsfeld's concerns. There 
are some studies going on, as part of the overall strategic 
review, to look at this particular question. Obviously, how one 
deals with the funding of these programs is an integral part of 
it.
    So, if confirmed, I very much would hope to be involved in 
reconciling the financial side to the pure mechanics of the 
acquisition side so that the program can be speeded up.
    Senator Dayton. Thank you. I would appreciate your sharing 
those reports with me when they become available. Thank you, 
Mr. Chairman.
    Chairman Warner. Thank you, Senator. Senator Bunning, do 
you have a question, too? Senator Levin? All right. You go, 
then I'll do wrap-up.
    Senator Levin. Thank you. I appreciate your yielding to me, 
Mr. Chairman, so I could leave in a few minutes.
    First, Ms. Clarke, last year, the editor of Stars and 
Stripes resigned because he was not allowed to publish a story 
even after the story was published in the Washington Post. I'm 
wondering whether or not you believe that Stars and Stripes 
should enjoy the same freedom to publish as other U.S. 
newspapers.
    Ms. Clarke. Absolutely, Senator. I think Stars and Stripes 
should be as independent and as credible as possible. It 
provides a very valuable service to the men and women in 
uniform and their families who serve overseas. It gives them 
news and information that they want, and they need and deserve 
to know that it is absolutely credible and independent. I think 
the safeguards are there. If confirmed, I would make sure the 
safeguards are enforced.
    Chairman Warner. That's encouraging to hear that. I concur 
in your response.
    Senator Levin. There is some real concern about that here, 
which you've just alleviated.
    Mr. Abell, what actions are you going to take to enhance 
recruiter access to secondary schools? This is a big part of 
our recruiting issue.
    Mr. Abell. Yes, sir. As you're aware, sir, as you recall, 
in last year's defense authorization bill, there was a 
provision that actually requires recruiter access unless the 
local school board takes some action. That provision is not 
effective until July 2002. This morning in the hearing, 
recruiters reported to us that their access was improving as a 
result of that, but they still sought more support. I think 
there are some things that we can do to encourage school 
systems to be more open to recruiters between now and 2002. 
Then in 2002, we'll follow the implementation of that 
provision.
    Senator Levin. What initiatives would you propose to 
improve the employment of spouses of our service members? That 
also is a big part of retention.
    Mr. Abell. Yes, sir. It's a difficult problem and one that, 
as I've traveled on the committee's staff, we find, at almost 
every location, is brought to our attention. There are a number 
of things that could be done, Senator--more education, tuition 
assistance for spouses. I, if confirmed, look forward to 
working with local civic organizations and chambers of commerce 
on initiatives like that to see what we can do.
    Senator Levin. There's been some evidence at least--
perhaps, anecdotal evidence--that we're beginning to lose the 
support of employers of our Reserve component personnel because 
of the deployments that we have seen. Any plans to address 
those concerns?
    Mr. Abell. Senator, I've heard the same anecdotes. I, if 
confirmed, would like to work very closely with the Assistant 
Secretary for Reserve Affairs to examine this and try to 
determine the causal factors and actually determine--change it 
from anecdote to evidence to find out what the real problem is 
and then address that problem. It may be one of communication, 
it may be one of over-deploying certain units and not others.
    Senator Levin. If confirmed, will you recommend a medal for 
children who sit through these confirmation hearings? 
[Laughter.]
    Ms. Clarke, I must tell you, you have really extraordinary 
children. They have been wonderful. I can't take my eyes off 
them. We will call it the ``Clarke Medal,'' if Mr. Abell is 
able to produce that. I just want to thank all of you. I 
shouldn't single out family members. You're all really 
deserving of medals for many reasons, but your children have 
really been extraordinary. So please give them all of our 
thanks.
    Ms. Clarke. Thank you, Senator.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin. The committee 
really enjoys its responsibilities in the confirmation process. 
It gives us an opportunity to share, not only views and elicit 
responses, but we really are appreciative of the overall family 
contribution to this public service. I thank you, Senator 
Levin.
    I will start with you, Ms. Clarke. Crisis management--it's 
just remarkable how your predecessors from time to time really 
are on the point at all hours of the day and night. Secretary 
Rumsfeld, I think, has a very good policy. He's been very 
careful in keeping Congress informed, certainly this 
committee--I can speak for the Senate side--in consultation 
with members of this committee and others about decisions that 
he's making.
    But then we have the tragic incident of the accident with 
the Chinese aircraft. I was called early in the morning, as 
were other members of this committee. I'm sure those 
responsibilities will fall on you. Tell us a bit about how 
you're going to go about this, because often you are the point 
person, particularly when the military families had their loved 
ones, at the end of the long voyage, or flight, whatever the 
case may be, at some remote part of the world and trouble is 
there--the anxiety in their hearts--you recognize that, being a 
family person, yourself.
    Ms. Clarke. Yes, sir.
    Chairman Warner. Tell us a bit about how you're going to 
approach that responsibility.
    Ms. Clarke. Certainly, Mr. Chairman. I hesitate to quote 
from somebody from just one service, but I think it was General 
MacArthur who said, ``The key to success and victory is 
preparation.'' I think that holds true across the board, 
including crisis management, including being prepared for the 
inevitable crises.
    If confirmed, one of the first things I want to do is to 
look into what is the planning, what processes do we have in 
place, and who is responsible for making sure the public 
affairs aspect of these incidents is addressed at the earliest 
possible position. I know there are some things in place, but I 
want to give it the utmost attention to ensure, when things do 
happen, the right people know, and the American people know as 
quickly as possible. So it's a matter of planning and process.
    Chairman Warner. Would you elaborate a little bit? By the 
way, I don't question General MacArthur's quote, but Admiral 
Jellico used to say, ``All preparation for naval battles starts 
in the engine room.'' In those days, they battened the hatches, 
and everybody in the engine room knew they were not going to 
come out and they had better stoke those old coal boilers and 
get full power for the captain to maneuver his ship. I've 
always enjoyed military history, and I hope that you share that 
curiosity and find a few moments to probe the magnificent 
contributions, certainly of those who have worn the uniform of 
this country for generations past. Congress--how do you propose 
to deal with Congress? Now, there's a long history about 
relationships with Congress and I would hope this Department 
sets a new high record for fairness and firmness, when 
necessary.
    Ms. Clarke. Well, Mr. Chairman, I will work closely with my 
legislative counterpart to make sure that you, this committee, 
the staff, and 535 Members of Congress get as much information 
as quickly as possible. Just by way of insight to how 
passionately I feel about this, I did work for John McCain for 
6\1/2\ years, and every day was a delight; but I know how 
important it is to be kept informed by the agencies, so I'll 
make that a priority.
    Chairman Warner. Also, I must say, you had the privilege of 
working with our former president, George Bush. I know of no 
finer American. I really have the greatest admiration for him, 
and I envy you for your close relationship with him.
    Ms. Clarke. It was an honor to work for him.
    Chairman Warner. It was mentioned in the hearing today, the 
problems that we're having with recruiting and retention, and 
the stories you relate and how you relate them will have a 
direct impact. I'm sure the secretary-to-be Abell can work with 
you on that, because he has studied it from afar, and now he 
will be in the responsible position on that. Do you have any 
special insights into that problem?
    Ms. Clarke. Yes, Mr. Chairman. Two years ago, I was 
fortunate to work on a recruiting study. It started out as a 
very narrow look at the advertising that was being used by the 
recruiting commands, and then it became a broader look at the 
recruiting marketing. We spent 6 very intense months working 
with the services, working with everybody, from the Secretary 
on down, on how we could improve the marketing on recruiting 
efforts. One of the things that was so extraordinary to us--we 
came about it by chance, and we made part of the research--is 
we interviewed everybody from the Secretary on down to the rank 
and file to the general public. There was very little 
consistency expressed about the role of the U.S. military--very 
little consistency. It's very hard to go out there and recruit 
when people, including people in uniform, don't have a real 
clear picture of what they're about, about what their mission 
is.
    So I think it's absolutely critical, and part of my agenda 
will be, to make sure the American people do know what the role 
of the U.S. military is in the 21st century. I think that will 
help with recruiting and retention.
    Chairman Warner. Well, that's a good response, because that 
is a key thing that we're going to have to deal with. There's a 
tremendous investment the American taxpayers make in the 
training of our service persons. We're so fortunate, when 
numbers of them decide to repeat their tours of duty, in the 
case of enlisted or, indeed, in the case of the officers, to go 
ahead and accept another promotion with the obligation of 
active duty associated. So I wish you luck.
    The other--and I think I'd better speak and you just 
listen--but, again, having had some experience in the 
Department and watching it from this side now for these many 
years, there's a certain degree of independence that a 
Secretary of Defense should and does accord to the Service 
Secretaries and their respective chiefs, but from time to time, 
we see examples of how a military department will go out on an 
issue and then problems begin to arise.
    I'm not being critical, but recently the Army made 
decisions with regard to the simplest of things, the beret, and 
we were besieged on Capitol Hill. Then, of course, they could 
not have foreseen the tragic problem with China. That 
exacerbated it. Then had to go back through a reassessment. I 
would hope that the Secretary and yourself can work with these 
departments on certain decisions which have a high profile of 
public interest and do everything possible to go ahead and 
implement that decision and do it by laying a careful base of 
understanding before it is rolled out.
    Ms. Clarke. Mr. Chairman, if confirmed, I hope that one of 
the things I can do is inject the public affairs sensitivities, 
if you will, at the earliest stages to prevent just those sorts 
of problems.
    Chairman Warner. Well, that's wonderful. I'm very reassured 
by your responses. We haven't heard a peep from the back row 
yet, so I guess----
    Ms. Clarke. Well, my colleagues are actually being very 
patient, because we're hearing lots of peeps back here. They're 
being very patient. [Laughter.]
    Chairman Warner. Dr. Zakheim, we had a marvelous 
conversation the other day--it's always enjoyable to have those 
calls from the nominees--and you reflected, and I would like to 
have the record reflect, your comments to me about one of your 
predecessors, Dr. John Hamre. He is just so respected by this 
committee. My parting comment was to you, call him up every now 
an then when things are going tough and say, ``How did you deal 
with this?''
    Dr. Zakheim. Mr. Chairman, for the record then, I have 
known John Hamre since he left graduate school, and I know he 
served this committee with distinction. John Hamre is one of 
the finest people--not just public servants, but people who I 
have ever come across. The man has truly a heart of gold. He 
demonstrates that in very quiet ways. He is not a showboater. 
The CSIS, the Center for Strategic and International Studies, 
of which I happen to be a senior fellow, is lucky to have him 
as President. This is one of the finest people in this city. 
Actually, it was you, Mr. Chairman, who said, ``No one has a 
bad word to say about John.'' The only people that don't have 
bad things said about them are people who are exceedingly good, 
and I value him as a friend.
    Chairman Warner. That he is. He, of course, served in your 
position, then went on to be the number two man in the 
Department, and he stayed on for part of the transition to--
when he passed the mantle over to another distinguished House 
member, who became Deputy Secretary of Defense, so he served 
his country well.
    In the course of working with Dr. Hamre, I took an 
initiative along the following lines. This committee enacted 
legislation last year to pay interest on service contracts that 
DFAS takes more than 30 days to pay, and I would hope that this 
committee has your commitment that you will continue to work to 
resolve this problem with the intent of reaching an on-time 
payment rate of these accounts at 100 percent. Do we have that?
    Dr. Zakheim. Well, Mr. Chairman, I'm not expert in this. 
It's obviously a very important issue to this committee, and I 
intend to look into it and certainly to carry out all 
commitments the Department has made.
    Chairman Warner. There's really a broader issue, and that 
is I have seen, through the years, a diminution in the 
infrastructure that supports our national defense--fewer 
companies. We're down now to one major manufacturer of our 
civil aircraft. In years past, the military aircraft programs 
produced prototypes, then operational aircraft and the 
derivatives found their way into civilian aviation, just to 
give one example. Quite frankly, I've stayed very close to this 
industry, and they're telling me, in a polite way, ``We're 
struggling with so much DOD regulation and red tape, why don't 
we just go and devote more of our assets of our corporation and 
our manpower of the corporation to performing lucrative, less 
complicated contracts, payment on time, in the civilian private 
sector?'' Therefore, you have to be conscious of that.
    Dr. Zakheim. Mr. Chairman, I served on the Defense Science 
Board Task Force on the health of the defense industry, and, 
frankly, they weren't as polite to us about this as they were 
to you. It is not just a matter of those companies that are 
working with the Defense Department and putting up with, as you 
put it, red tape; it's also a lot of very talented companies 
and people that don't want to touch the Defense Department at 
all. Here, we have a high-tech revolution going on, and very 
few of those companies want to have any business with DOD.
    We heard that in spades, Mr. Chairman, and I'm deeply 
concerned about it, and I know the Secretary of Defense is, as 
well. Certainly if confirmed, I intend, to the extent that the 
Comptroller gets into these matters, to do something about 
that.
    Chairman Warner. Well, in fact, the budget process has been 
singled out often as the major contributor to lengthening the 
acquisition process.
    Dr. Zakheim. That is very--unfortunately, Mr. Chairman, is 
often the case, and what we need are stable budgets. We need 
budgets that are predictable for industry. Corporate planners 
also have to think ahead. This has to be a partnership. So, Mr. 
Chairman, I am certainly aware of your concern, and I do share 
it.
    Chairman Warner. Thank you. Now, Mr. Abell, this committee 
has made some significant progress over the years here, 
following Chairman Thurmond and with the help of my 
distinguished ranking member. We have increased pay. We're in a 
remarkable step forward in military healthcare, both active and 
retired. Now that you're leaving, are you going to leave behind 
a little memo as to what's next? Are you going to help us, as 
you did lead in those legislative efforts, with what's next? 
Housing comes to mind. The problems associated with base 
maintenance which, in effect, relates to the quality of life on 
base. What is next, Mr. Abell?
    Mr. Abell. I think you have hit some of them, Senator. 
Clearly, the pay always remains an issue, and will as long as 
there is a robust economy. Housing, both bachelor and family 
quarters, we know are not adequate now within the Department of 
Defense, and there are a number of programs under way, some 
just beginning, actually, to improve that housing.
    I'm, again, aware that that's a focus of some of Secretary 
Rumsfeld's efforts; and to the extent that can be accelerated, 
I look forward to working with those issues. Again, sir, we're 
going to have to keep on the deployment issue. One of the 
things we hear when we talk to service members is that they're 
away much too much.
    Chairman Warner. Away from family--you had better add that 
key phrase, ``away from family.'' They all recognize, when they 
wear that uniform with great pride, the risks associated, but 
we have had a deployment situation over the past 6 or 8 years 
which, numerically, has been more than any previous president 
and, indeed, the combination of several of them. Am I correct 
in that? What is the statistic you recall?
    Mr. Abell. Senator, I can't quote it directly off the top 
of my head, but my recollection is that in the past 8 years, 
they've deployed more than any other time in history. That's my 
recollection.
    Chairman Warner. That's correct. We will always be there in 
response to our own security needs and those of our allies. But 
I hope that we can work to reduce those deployments.
    But let's talk about what's next. I would like to see 
greater partnering with the private sector, in the case of 
housing. Maybe we can further enhancements with healthcare. 
What are your views on that?
    Mr. Abell. Senator, we already know that the Department 
can't provide enough healthcare with its internal assets, the 
medical departments of the three services. TRICARE is all about 
purchasing healthcare from the private sector. So we have to be 
more efficient about that, and more effective, but that clearly 
is a step in that direction.
    This committee has pioneered many of the public-private 
ventures, as far as family housing. I was privileged, this past 
week, to look at initiatives and the results of those 
initiatives in Texas and in California and in Washington State, 
some very promising opportunities there, also some problems 
that still need to be addressed as we begin, really, the thrust 
of those initiatives. I look forward to working with the 
committee on those issues and on others.
    There are other areas in which the public-private ventures 
will be explored, as well. Morale, welfare, and recreation 
facilities come to mind. There are certainly opportunities 
there, I believe.
    Chairman Warner. Well, I am reassured by that. Dr. Zakheim, 
you do more than just sign checks and hand them over to the 
Secretary. I hope that he brings you into whatever little board 
of governors he constitutes, or whatever you want to call the 
organization in DOD, and that you will be given a strong voice, 
and he will lend an ear, because you understand how, in years 
past, the comptrollers have been called upon to take as much 
money as they can out of procurement and move it in to fill the 
gaps in the expenditures--on overseas deployments, for example. 
Mr. Abell knows that history very well.
    I hope that you can say, ``Now, Mr. Secretary, we are way 
behind in the modernization of our forces, and that has a 
direct correlation to retention, lifestyle, the whole thing,'' 
because when an individual raises their hand to take the oath 
of office to serve in the U.S. military, that person is relying 
on a commitment to Congress to give them the best weapons 
available--maybe not the most expensive or exotic, but the best 
available--and they should not be required to take spare parts 
out of existing equipment to put in other equipment to meet 
their readiness requirements, and things of this nature.
    So put your foot down, think of the military in the future. 
Procurement is the lifeblood for today's and tomorrow's 
military, and we cannot under-fund that account. We're going to 
watch. Guess what? We're going to hold you accountable. Is that 
understood?
    Dr. Zakheim. That is very well understood, Mr. Chairman. I 
happen, personally, to share your views on this one. I've 
actually written about this on more than one occasion. 
Thankfully, Mr. Rumsfeld, the Secretary of Defense, feels very 
strongly the same way, so that, if confirmed, I do not believe 
I will be beating against a shut door when I raise those 
issues. This is widely felt by the senior leadership of the 
Department. We simply cannot shortchange the future to fund the 
present. It's as simple as that.
    Chairman Warner. All right. We will keep the record open 
for questions by the members through 12 noon tomorrow, should 
other members who, because of commitments, were not able to get 
here today. I would hope the nominees would respond, because 
I'm anxious to seek floor confirmation as early as possible.
    It may be we can move you as a group, or singularly, 
whatever the case may be. There is no significance to be drawn 
by the fact that all can't be moved at once, but we're going to 
try and do it, because Secretary Rumsfeld has been very 
patient. But this committee has had, if I may say on behalf of 
every member of the committee, treated all nominees very 
carefully, but expeditiously where we can, and we are anxious 
to have you join the team with the advice and consent of the 
United States Senate.
    So I wish each of you well. You're going to take a front-
row seat on some of the greatest challenges facing this country 
and the world, and I think each of you are ably competent to 
fulfill your offices. Good luck.
    [Whereupon, at 5:15 p.m., the hearing was adjourned.]

    [Prepared questions submitted to Dr. Dov S. Zakheim by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                  March 21, 2001.  
Hon. John Warner,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Dov S. Zakheim.
cc: Senator Carl Levin,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes I do. The establishment of the combatant commands, the 
delineation of responsibilities, and most importantly, the focus on 
``jointness'' outlined in the Department of Defense Reorganization Act 
of 1986 has enhanced the readiness and warfighting capabilities of the 
U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have strengthened the role of the Chairman of 
the Joint Chiefs of Staff and the combatant commanders, and 
significantly improved the ability of the Department to protect 
America's security and further its vital interests. The reforms have 
helped improve the interaction among the services in conducting 
military operations by making joint operations the norm.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted below to be an 
important aspect of these defense reforms. Each one has enhanced the 
ability of the Department of Defense to carry out its assigned 
responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Do you anticipate that the Department of Defense will 
submit legislative proposals to amend Goldwater-Nichols?
    Answer. If confirmed, I will work as appropriate with the Secretary 
and with the committee to review the extent to which the reforms have 
been implemented and the extent to which they have achieved their 
stated goals. As Secretary Rumsfeld has noted, we would consult with 
Congress on any changes that might be appropriate.
    Question. If so, what areas do you plan to address in these 
proposals?
    Answer. It would be premature to offer any thoughts on the question 
at this time.
                             relationships
    Question. What do you see as the relationship between the Under 
Secretary of Defense, Comptroller and each of the following?
    The Secretary of Defense.
    Answer. The Under Secretary of Defense (Comptroller) is the 
principal assistant and advisor to the Secretary and Deputy Secretary 
of Defense on fiscal and budgetary matters. The Under Secretary 
(Comptroller) also performs such other duties as the Secretary or 
Deputy Secretary may prescribe.
    Question. The Deputy Secretary of Defense.
    Answer. Please see the answer above.
    Question. The other Under Secretaries of Defense.
    Answer. My relationship with all other senior officials of the 
Department will, for the most part, be based on the role described 
above. If confirmed, I will work closely with the other Under 
Secretaries to carry out the policies and guidance of the Secretary and 
Deputy Secretary.
    Question. The Assistant Secretaries of Defense.
    Answer. My relationship with the Assistant Secretaries of Defense 
and other senior officials of the Office of the Secretary of Defense 
would be similar to that described above in relation to the other Under 
Secretaries of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I intend to work closely with 
the Chairman.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff has a vital 
role in developing and implementing joint plans, programs, and policies 
for the Services. If confirmed, I anticipate working closely with the 
Vice Chairman.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments carry out the 
policies of the President and the Secretary of Defense in their 
respective Military Departments and formulate recommendations to the 
Secretary and to Congress relating to their Military Departments and 
the Department of Defense. If confirmed, I intend to work closely with 
the Secretaries of the Military Departments, and specifically, their 
Assistant Secretaries for Financial Management. I will assure that they 
are aware of the President's and the Secretary of Defense's policies 
and priorities and assist them in contributing to the successful 
development and implementation of effective DOD policies and programs.
    Question. The Assistant Secretaries of the Military Departments for 
Financial Management.
    Answer. In the role of Comptroller and Chief Financial Officer for 
the Department, I will, if confirmed, work closely with the Assistant 
Secretaries of the Military Departments for Financial Management in the 
development and execution of the budgetary and fiscal policies and 
initiatives of the President and the Secretary of Defense.
    Question. The Inspector General.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, I will, if confirmed, consider it my responsibility to support 
the Department of Defense Inspector General (DODIG) in carrying out his 
or her duties as set forth in the Inspector General Act.
                       duties of the comptroller
    Question. The duties of the Comptroller of the Department of 
Defense are set forth in Section 137 of Title 10, United States Code, 
and in DOD Directive 5118.3. Among the duties prescribed in statute, 
which were codified in the Goldwater-Nichols Act, are advising and 
assisting the Secretary of Defense in ``supervising and directing the 
preparation of budget estimates of the Department of Defense,'' 
establishing and supervising Department of Defense accounting policies, 
and supervising the expenditure of Department of Defense funds.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. I expect that he will charge me to do everything possible 
to derive the greatest national security benefit from every budget 
dollar. With respect to financial management, he will want me to get 
our books in order and work to ensure that all DOD support activities 
meet the needs of our combat forces.
    Question. What background and experience do you possess that you 
believe qualifies you to perform the duties of the Comptroller?
    Answer. My previous appointments in the Department of Defense 
required daily and extensive involvement in budget issues. For over 20 
years I have been enmeshed in the defense questions that surround the 
budget process. I have led and managed offices with responsibilities 
similar to those in the Comptroller organization.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. Since informed of my nomination, I have worked extensively 
to further increase my expertise for this position.
    Question. Do you expect Secretary Rumsfeld to make any changes in 
the duties of the Comptroller as set out in DOD Directive 5118.3?
    Answer. It would be premature to offer any thoughts on the question 
at this time.
                        chief financial officer
    Question. Does Secretary Rumsfeld intend to continue to designate 
you, if confirmed as the Comptroller, as the Chief Financial Officer of 
the Department of Defense?
    Answer. Yes, if I am confirmed, I will be the Department's Chief 
Financial Officer.
    Question. If so, what would be your major responsibilities as Chief 
Financial Officer?
    Answer. If I am confirmed, I will report directly to the Secretary 
regarding overall financial management matters within the Department. 
As Chief Financial Officer of the Department, I will be entrusted with 
the oversight, design, development and implementation of accounting and 
financial management systems within the Department. These 
responsibilities complement the Comptroller's oversight 
responsibilities of broad budget and programming activities within the 
Department.
    Question. Does Secretary Rumsfeld intend to transfer any 
responsibilities now assigned to the Comptroller by law or regulation 
to the Chief Financial Officer?
    Answer. No. The Secretary does not intend to transfer any of the 
Chief Financial Officer responsibilities.
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Each 
year, we hear about various strategies and initiatives the Department 
or its components are undertaking to correct these deficiencies, yet 
the issues still remain and the data continues to be unreliable.
    What do you plan to do to provide the needed leadership and 
commitment necessary to ensure results and improve financial management 
in the Department?
    Answer. I am fully committed to improving financial management in 
the Department of Defense. Secretary Rumsfeld has stated that improving 
the quality of financial management information is one of his highest 
priorities. If confirmed, I intend to solicit the direct involvement of 
the Secretary and the Deputy Secretary to instill a sense of urgency in 
the Department's senior leadership. Second, I intend to draw from 
successful private sector models in the development and implementation 
of modern financial management processes and systems.
    Question. The Chief Financial Officers Act, as amended, requires 
the annual preparation and audit of financial statements for Federal 
agencies. However, the DOD Inspector General and GAO's financial audit 
results have continually pointed out serious internal control 
weaknesses concerning hundreds of billions of dollars of material and 
equipment, as well as billions of dollars of errors in the Department's 
financial records.
    Do you believe in the importance of following basic internal 
control procedures, and how will you correct this situation?
    Answer. Effective internal controls are an absolute necessity. If 
confirmed, I intend to ensure that effective internal controls are 
embedded in all of the Department's financial management processes and 
systems. The internal controls in the non-financial feeder systems, 
such as property and inventory, must also be strengthened. I look 
forward to the results of the independent review of the Department's 
financial management problems that Secretary Rumsfeld has initiated.
    Question. If you are confirmed as the Comptroller for the 
Department of Defense you will be responsible for a budget of 
approximately $310 billion.
    What do you consider to be the top financial management issues to 
be addressed by the Department over the next 5 years?
    Answer. One of the most important financial management issues 
facing the Department of Defense is the need for accurate and timely 
financial management information. Managers across the Department must 
have better information on the costs of operations and programs in 
order to ensure accountability and the most effective use of the 
taxpayers dollars. Obviously, measure of progress toward this goal will 
be to achieve a clean audit opinion on the Department's financial 
statements. However, the Department must have processes and systems 
that do more than prepare accurate financial statements once a year. 
The Department's financial management systems must be able to provide 
managers with accurate information at appropriate levels of aggregation 
that will facilitate fiscally sound decision-making.
    I believe that the Department must focus on implementing compliant 
automated financial management and feeder systems. The large volume of 
transactions and the extensive number of organizational elements 
necessitates an automated solution. Unfortunately, fielding compliant 
accounting and financial management systems on time and within budget 
has been a major departmental weakness. As part of a systems 
implementation effort, the Department must also address the lack of 
standardization in its financial management data structures. The lack 
of standard data structures has been a significant impediment to the 
development and implementation of effective financial management 
systems.
    Question. To effectively evaluate the management of an organization 
you need to have a clear set of standards to use as criteria. DOD has 
no shortage of financial management plans. However, we have seen 
minimal progress in terms of implementing real improvements in the 
Department's financial operations.
    What are the most important performance measurements you would use 
to evaluate changes in the Department's financial operations to 
determine if its plans and initiatives are being implemented as 
intended and the anticipated results are being achieved?
    Answer. I believe that managers should be held accountable for 
meeting established goals and objectives. The Defense Finance and 
Accounting Service (DFAS) has an extensive set of performance metrics 
that are used to gauge the effectiveness of its operations. If 
confirmed, I will review the DFAS metrics and make changes where 
appropriate. However, since much of the data needed for effective 
financial management originates outside of the DFAS, additional 
performance measures may be needed. I will also work with the Secretary 
and the DOD Components to establish performance measures, as 
appropriate, for each of the functional areas--such as real property 
accountability and maintenance, inventory accuracy and valuation--that 
must provide data to the financial management systems. Those 
performance measures would address both operational outcomes as well as 
systems implementation objectives.
    Question. Some have suggested that because of the far-reaching and 
entrenched nature of the Department's financial management problems, an 
independent outside oversight board of experts, or an audit committee, 
may be necessary to help lead the Department in its financial 
management reform efforts. Such a high level board could be established 
to provide counsel, oversight, and perspective to DOD's reform efforts. 
Audit committees have been used in the private sector for decades. 
These committees have been instrumental in identifying potential 
problems in an entity's financial statements as they are audited.
    Would you advocate that DOD establish such a board or audit 
committee?
    Answer. Secretary Rumsfeld has initiated a study to review and 
analyze the Department's financial management operations. The study 
will result in recommendations to the Secretary. Until the results of 
the study are available, it would be premature for me to address 
specific proposals.
    Question. If so, what are your views on the composition, reporting 
level, authorities and responsibilities of such a board?
    Answer. In preparing for this confirmation hearing, I have been 
informed that the Department has a number of boards and committees 
already in existence. If I am confirmed as Comptroller of the 
Department, I will evaluate the effectiveness of these existing boards 
and committees. I will also review the results of the study authorized 
by Secretary Rumsfeld to assess the situation at the Department of 
Defense. After I have reviewed these existing boards and committees, 
and have reviewed the recommendations contained in the study, I will be 
able to address specifics related to the need for such a board.
    Question. DOD leadership has acknowledged that the Department 
confronts financial management problems deeply grounded in bureaucratic 
practices that developed and evolved in a piecemeal fashion over a 
period of decades to accommodate many different DOD component 
organizations, each with its own parochial interests and history. As a 
result, each of the military services now operates unique, nonstandard 
financial processes and systems. The Department has reported that an 
estimated 80 percent of the data needed for sound financial management 
comes from systems owned and operated not by the DOD Comptroller and 
Defense Finance and Accounting Service (DFAS), but by other 
organizations throughout DOD that are accountable to the secretaries of 
the military services or other DOD component heads.
    What additional authority or organizational changes, if any, will 
you seek to ensure that you have the authority you need to implement 
DOD-wide financial management improvements?
    Answer. Improving the Department's financial management operations 
is one of Secretary Rumsfeld's top priorities. If confirmed, I will 
review the organizational structures impacting the delivery of 
effective financial management information. However, it would be 
premature for me to make any specific recommendations related to 
organizational changes or additional authority.
    Question. What would be your strategy to work with the Office of 
the Secretary of Defense and the military services to effectively bring 
about the fundamental changes needed in the Department's financial 
management operations?
    Answer. If confirmed, I will assume the responsibilities as the 
Department's Chief Financial Officer. As the CFO, I will lead the 
effort to improve the Department's financial management operations. I 
believe in matrix management and will work with other senior officials 
in the Office of the Secretary of Defense and the Military Departments 
to develop and implement the changes that are needed. If need be, I 
will not hesitate to call upon the Secretary or Deputy Secretary for 
support and assistance.
                               budgeting
    Question. Recently, the Department's Planning, Programming, and 
Budgeting System (PPBS) has come under criticism. A recent commission, 
which included a number of former Defense officials and former GAO 
Comptroller General Bowsher, argued that PPBS has become a hindrance, 
essentially causing much of the current planning and budgeting problems 
in DOD. One of the commission's principle findings was that instead of 
charting a strategic course for the military services, PPBS has bred 
bureaucracies that now serve to simply channel consistent percentage 
shares of DOD's annual budget to the military services.
    What are your views on the PPBS process?
    Answer. I believe that three principles must shape the Department's 
approach to planning, programming, and budgeting.
    First, the process must provide the Secretary and Deputy Secretary 
a vehicle for addressing major resource issues in a business-like 
manner. The process must (and will) adapt itself to the agenda and 
style of the top decision-makers, and must likewise change with the 
times, as required to serve their needs.
    Second, the process should emulate the ongoing strategic defense 
review by presenting to the Secretary and Deputy Secretary decision 
packages that offer coherent alternatives, each of which specifies the 
essential elements of plans, programs, and fiscal guidance required for 
its implementation.
    Third, the process should be seamless. The data supporting both 
programming and budgeting activities must be congruent and reflect the 
same underlying major decisions. The two processes must be properly 
coordinated and integrated so as to ensure that major decisions made by 
the Secretary and Deputy Secretary are carried out.
    Question. In your opinion, is it fundamentally flawed?
    Answer. I would refer you to my answer to the question above. I 
believe that the PPBS process must be adapted to the requirements of 
the administration. It's premature to consider any potential changes 
until the Secretary's reviews have been accomplished.
    Question. What, if any, reforms or changes would you make in this 
area, if confirmed?
    Answer. As described above, I believe that the PPBS must adapt to 
serve the Secretary's needs. Until completion of the review process 
that the Secretary has directed, it would be premature to identify 
specific actions.
    Question. It has been reported that the Defense Planning Guidance 
is produced far too late to provide any useful guidance to the services 
in producing their POMs and budgets.
    What can be done to make internal DOD planning guidance more useful 
and timely?
    Answer. If confirmed, this is an area that I will be looking at 
closely with the Secretary and Deputy Secretary of Defense. The 
President and the Secretary are very interested in reviewing the 
Department's strategy before proceeding with resource allocation 
decisions for the budget or future years. This focus on upfront ``top 
down'' planning will lead to additional emphasis on planning guidance 
to ensure that all elements of the Department can address the 
Secretary's strategic priorities.
                     systems/information technology
    Question. DOD has acknowledged that its current financial 
management systems do not comply with Federal financial management 
systems requirements and were not designed to collect data in 
accordance with generally accepted accounting principles. Last year, 
DOD reported that it did not expect to have the necessary systems in 
place to be able to prepare financial statements that could comply with 
generally accepted accounting principles before fiscal year 2003.
    Where does this area fit in your list of priorities?
    Answer. Achieving compliant financial management systems--
incorporating the associated feeder systems (such as personnel and 
logistics systems)--is perhaps the most critical step in the effort to 
produce effective financial management information and auditable 
financial statements. Without systems that comply with: (1) Federal 
financial systems requirements; (2) Federal accounting standards; and 
(3) use of the United States Government Standard General Ledger at the 
transaction level, the Department will not be able to produce accurate 
financial statements on a timely and consistent basis. Ensuring that 
the proper emphasis is applied to this effort will be one of my top 
priorities if confirmed.
    Question. What will be your strategy for ensuring that the 
Department's systems reengineering efforts supporting the DOD's 
financial operations are carried out in the context of an overall 
operations concept--a concept that encompasses all functional areas?
    Answer. The Department is committed to improving its financial 
operations and meeting Federal financial management systems 
requirements.
    The Secretary has initiated a study to review and analyze the 
Department's financial management operations. The study will yield 
recommendations to the Secretary for specific proposals to improve DOD 
financial management. Clearly, DOD must focus its attention on 
improving or replacing systems in order to provide reliable, useful and 
timely financial information. Decision-makers need the most accurate 
financial information to evaluate outputs, services, costs, efficiency, 
productivity and other essential management indicators. Such 
information is a vital tool for holding managers accountable. Once the 
review is complete, I will be in a better position to formulate a 
strategy to ensure that DOD's system reengineering efforts indeed are 
framed within the context of an overall operations concept.
    Question. Many of the financial management improvement initiatives 
the Department of Defense is implementing are aimed at implementing 
standard systems across all DOD components.
    What are your views on standardizing accounting systems and related 
financial information across the Department?
    Answer. I am in favor of standardization when it makes sense to do 
so. Obviously, there are efficiencies and economies associated with 
standardizing financial processes, practices, systems, and operations. 
If confirmed, I plan to review carefully the issue of standardization.
    Question. Continuing concerns over escalating weapon system costs 
have served to highlight the need for timely and reliable financial 
reporting. DOD itself has acknowledged that the lack of a cost 
accounting system is the single largest impediment to controlling and 
managing weapon system costs.
    If confirmed, what steps do you plan to take to ensure that 
Congress receives timely and reliable information on the costs 
associated with the acquisition, management and disposal of its weapon 
systems?
    Answer. I recognize that Congress is deeply concerned that it does 
not receive reliable and timely cost information related to all facets 
of weapons systems programs, from acquisition to disposal. I am 
determined to improve upon the current situation. If confirmed, I would 
work with the Office of the Under Secretary of Defense (Acquisition, 
Technology, and Logistics) to coordinate efforts to provide the data 
Congress requires for its own decision-making processes.
                             human capital
    Question. In response to the Defense Acquisition Workforce 
Improvement Act of 1991, DOD has taken action directed at improving the 
professionalism of its acquisition workforce. This was brought about as 
a result of the need to better ensure that DOD's acquisition workforce 
was well versed in the rapidly changing technical skills needed to keep 
abreast of acquisition trends. A key part of the effort to upgrade the 
professionalism (technical currency) of DOD's acquisition workforce was 
the requirement that each acquisition official receive a minimum of 80 
hours of continuous learning every 2 years. While DOD has stated that 
this should be a goal for financial management personnel, it has not 
made it a requirement because of uncertainties over whether necessary 
funding would be available.
    What are your views on the merits of establishing a requirement 
that all DOD financial management personnel receive a minimum of 80 
hours of continuous learning every 2 years?
    Answer. Within any profession, there is significant value derived 
from training to maintain currency and technical proficiency. Today, an 
increasing number of DOD financial management personnel are seeking 
financial management certification. Some of these certification 
programs require 80 hours of relevant training every 2 years in order 
to maintain those certifications.
    I intend to encourage all DOD financial management personnel to 
become certified through one or more of the programs already available, 
and to maintain that certification through ongoing training and 
education throughout their careers.
    Question. If confirmed, what actions would you take to ensure that 
DOD's financial management personnel keep abreast of emerging 
technologies and developments in financial management?
    Answer. If confirmed, I intend to work with the Secretary to see 
that adequate funding is made available to train the Department's 
financial management workforce and maintain the highest standards of 
performance. In that regard, I will examine options for reimbursing 
individuals for their professional certification costs as a means of 
extending the benefits of such training to all DOD military and 
civilian personnel in the financial management workforce. Working with 
the Under Secretary of Defense (Personnel and Readiness) and the DOD 
Component Senior Financial Managers, I intend to pursue the 
establishment of specific training and education standards for 
professional financial managers. Such standards eventually should be 
used as a factor in future hiring and promotion decisions. I also will 
actively encourage DOD financial management personnel to take advantage 
of the excellent existing financial management professional development 
opportunities.
                    research and development issues
    Question. In the past, Pentagon sponsored science and technology 
programs made this country the world's undisputed super power with the 
development of smart munitions, stealth aircraft, and sophisticated spy 
satellites. Today, the number of Pentagon sponsored programs continue 
to be reduced because of shrinking budgets and the red tape involved in 
doing business with the government.
    Do you believe the funding level for science and technology is 
adequate or is there a need for more specific science and technology 
funding?
    Answer. The president's budget includes a $2.6 billion initiative 
($20 billion over 5 years) to fund R&D of new technologies. Among areas 
in which new investment might be made include: new weapons and 
intelligence systems; improvements to the laboratory and test range 
infrastructure; and technologies aimed at reducing the costs of weapons 
and intelligence.
    I would seek Secretary of Defense approval for funding the Science 
and Technology (S&T) program at a level that ensures the technological 
superiority of our Armed Forces. Since the mid-1990s, the percentage of 
the Department's request for S&T compared to the overall defense budget 
has declined from 3.1 percent to 2.5 percent. I will seek to provide 
the resources needed to meet the administration's goal of developing 
new generations of technology and maintaining our technological edge.
    Question. The Department of Defense science and technology programs 
are generally oriented toward ``breadboard'' valuation of technologies 
in a laboratory, not the demonstration of technologies in an 
operational environment. While the Department of Defense has a few 
demonstration programs that assist in technology transition, including 
Advanced Technology Demonstrations, Advanced Concept Technology 
Demonstrations, and Experiments (both joint and Service-specific), 
there is not a source of funding in the Department that is specifically 
dedicated to bridging the gap between science and technology programs 
and acquisition programs.
    Do you believe that the Department should establish a program 
specifically dedicated to demonstrating technologies in an operational 
environment, to help provide the Department's acquisition programs with 
technologies that are sufficiently mature to be put into an efficient 
manner?
    Answer. I am aware of the importance of evaluating technologies 
outside the laboratory. DOD is currently studying additional innovative 
ways of doing so, and I await the product of these study efforts to 
determine what new programs might be warranted.
                          inventory management
    Question. Do you believe DOD has adequate controls over, and 
financial information on, its inventory?
    Answer. The Department's inventory processes have undergone 
extensive reviews during the last decade, and the result has been more 
in-depth control and accountability over the physical inventory. There 
is a need to integrate the financial, acquisition and logistics 
information regarding inventory and related materials. Consequently, a 
significant effort has recently been initiated to evaluate and improve 
the Department's management information, to include its physical 
inventory and financial records.
    Question. If not, what steps would you take, if confirmed, to 
improve inventory management?
    Answer. As DOD modernizes its information technology systems, it 
has the opportunity more closely to connect the financial, procurement 
and logistics data on the material in inventory. I believe that the 
Department already has laid the foundation for an in-depth evaluation 
of this issue.
    Therefore, it would be premature for me to make any specific 
recommendations for improvement prior to completion of that analysis.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to Section 
114 of Title 10, U.S.C. is necessary before funds for operations and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by the Department of 
Defense?
    Answer. The problem of appropriated not authorized spending has 
been a complication for the Department of Defense for many years. If 
confirmed as the Department's Comptroller, my goal would be to respect 
the prerogatives of all our oversight committees. I believe our 
national security is supported best through consensus-building on U.S. 
defense needs among DOD leaders and all our oversight committees. If 
confirmed, I would work toward supporting such a consensus in every way 
I could.
                          obligation of funds
    Question. On occasion, the Comptroller has withheld funds for 
programs added by Congress to the defense budget request.
    Do you intend to continue this policy?
    Answer. As I understand the Department's current practice, the 
Comptroller conducts an assessment of the manner in which additional 
funding supports a Defense mission, how it fits within current approved 
program plans, and whether it will create a future funding requirement. 
This practice seems consistent with the Comptroller's responsibility to 
establish and supervise the execution of policies and procedures 
relating to the expenditure of DOD funds.
                       defense management reforms
    Question. Over the past decade, the Department of Defense has 
initiated a series of management reform initiatives (the Defense Reform 
Initiative being the most recent) to improve the efficiency and 
effectiveness of defense operations. As these initiatives were 
unveiled, DOD forecast significant cost savings and, in many cases, the 
assumed savings were then deducted from the budgets of the Services in 
advance of implementation of the reforms. Unfortunately, the actual 
savings were lower than anticipated. Not achieving these savings goals 
has resulted in unplanned expenditures that promote additional budget 
instability.
    How and when should the Department incorporate anticipated savings 
from proposed defense reform efforts into its budget plans?
    Answer. In some cases it may be appropriate to incorporate 
anticipated savings in budget plans. Nevertheless, any efforts to do so 
must be undertaken with considerable caution so as to avoid 
anticipating savings that ultimately are not realized.
                              overpayments
    Question. Some in Congress have called for mandatory use of 
recovery auditing techniques either by internal DOD auditors or outside 
private contractors.
    Do you agree that such an approach is needed?
    Answer. The Department of Defense has several years of experience 
with recovery auditing. Based on that experience, I support the use and 
expansion of recovery auditing. If confirmed, I will look at the 
Department's implementation to see that it is working in the best 
interest of the taxpayers, and consider the whether mandatory recovery 
should be examined.
    With respect to the question as to whether recovery auditing should 
be performed internally or by an outside firm, I believe that such a 
determination should be made on a case-by-case basis. Where access to a 
vendor's financial records is required, such reviews should be 
performed by the Defense Contract Audit Agency.
                           acquisition reform
    Question. During his nomination hearing, Secretary Rumsfeld stated 
that the need to swiftly introduce new weapons systems is paramount. He 
further went on to say that the present acquisition system is ill-
suited to an era of rapid technological advances and pervasive 
proliferation. One of the constraints in reducing acquisition cycle 
time is the present budget process. The life cycles of some of the 
technologies necessary for DOD transformation are sometimes shorter 
than the time it takes for DOD to obtain the funding to transition 
these technologies into useful capabilities.
    What type of budgetary reforms, if any, do you see as necessary to 
improve the way DOD buys weapons systems and enhance the Department's 
ability to incorporate technology faster, better and cheaper?
    Answer. Innovative techniques such as transition funding and 
expanded budgetary flexibility could allow rapid transition from 
experiments to weapons systems and rapid technology insertion. Two-year 
appropriations and internal budget stability between milestones might 
also provide stability for acquisition programs, and I know it is under 
review in Congress.
                          base closure savings
    Question. You have stated that you believe additional base closures 
are needed to bring the Department's base structure in line with its 
force structure.
    In your view, have the previous base closure rounds resulted in 
significant reductions in DOD costs that made resources available for 
higher priorities?
    Answer. It is important that savings from base closures be real and 
meaningful as we strive to ensure that force structure and 
infrastructure are properly aligned. The DOD and the General Accounting 
Office have concluded that savings from base closures are 
``substantial.''
    Question. If similar savings result from future base closures or 
realignments, do you believe there are unfunded needs within the 
Department that could benefit by redirecting resources away from excess 
infrastructure?
    Answer. The President's budget blueprint discusses excess 
infrastructure capacity and the need to consider that as an element of 
shaping the military more efficiently. As the Secretary indicated in 
his response to advance questions from this committee, we will withhold 
an assessment of the need for future base closure rounds until after 
the completion of the defense review.
             government performance and results act (gpra)
    Question. If confirmed as Comptroller, what would your 
responsibilities be with respect to DOD implementation of the 
requirements of the GPRA to set specific performance goals and measure 
progress toward meeting them?
    Answer. As Comptroller, I will be responsible for coordinating the 
Department's budget development. I will also oversee the implementation 
of GPRA within DOD. GPRA will be fully integrated with DOD's Planning, 
Programming, and Budgeting System (PPBS), and will reflect the key 
performance goals of the Department.
    Question. What additional steps can the Department take to fulfill 
the goals of the GPRA to link budget inputs to measurable performance 
outputs?
    Answer. I believe that the Department's annual GPRA performance 
plans and reports should continue to provide an executive-level view of 
the results we expect from the budget. The output measures we select 
should reflect our objective to maintain a quality force that is well 
trained and equipped to execute the new defense strategy. Once we 
complete our strategic review, I look forward to providing Congress 
with the Department's performance plan for the new defense budget, and 
discussing with you how we will use performance measures to track the 
Department's results during budget execution.
  peacekeeping and use of supplementals to fund contingency operations
    Question. You have stated that peacekeeping is a ``strategically 
marginal'' use of U.S. defense funds and advocated ``withdrawing from 
much of the peacekeeping business'' so that funds could be used for 
other needs. You cited the Bosnia mission as ``the most egregious 
example'' of a peacekeeping mission that cost more than originally 
projected.
    Is it your view that the United States should refuse to provide 
ground troops to participate in peacekeeping missions, either 
unilaterally or with our allies?
    Answer. U.S. forces should participate in peace operations when we 
deem it to be in our national interests. Even then, participation 
should occur when the operation has clear objectives, a coherent 
strategy, a reasonable chance of success, acceptable command and 
control arrangements, and an exit strategy.
    Question. If so would you advocate U.S. withdrawal from any current 
deployments?
    Answer. All ongoing operations should be continually reviewed to 
ensure that the nature of our participation remains consistent with our 
interests and that we are likely to achieve U.S. objectives. Completing 
such a review is one of the President's and Secretary's priorities.
    Question. When unanticipated contingency operations do arise, 
whether peacekeeping or high intensity combat operations such as 
Operation Allied Force in Kosovo, do you believe the Department and 
Congress should continue to use the existing process of funding the 
incremental costs of such operations through ad hoc supplementals, or 
do you intend to propose an alternative approach?
    Answer. Ad hoc supplementals traditionally were employed to meet 
necessary but unforeseen costs. It would be best to restrict 
supplementals to this traditional model and provide funding for ongoing 
operations as much as possible within the regular budgeting process.
    Question. Does the administration intend to include unanticipated 
emergency defense needs in the National Emergency Reserve account 
proposed in the President's budget blueprint?
    Answer. The President has identified the Reserve for true 
emergencies and it remains to be determined how that will be 
structured. If confirmed, I will work with the Secretary and other 
agencies to ensure the fund is established and developed as 
appropriate.
                         environmental cleanup
    Question. You have described environmental cleanup and compliance 
on defense installations as an example of ``non-defense programs in the 
defense budget''.
    Do you advocate removing these costs from the DOD budget?
    Answer. As Secretary Rumsfeld testified during his confirmation, we 
need a comprehensive approach to satisfy both our readiness needs and 
the legal and moral responsibilities as stewards of public lands. 
Twenty-five years ago, environmental regulations were in their infancy, 
and the cost of compliance was negligible in the DOD budget. Things are 
much different today. Regulations have multiplied. America's attitude 
toward the environment has changed. Our national tolerance for 
pollution has significantly decreased. Environmental cleanup and 
compliance are not core missions of national defense any more than they 
are core missions of General Motors, IBM, or the U.S. Department of 
Agriculture; however, they are a cost of doing business today. There 
may be opportunities to achieve savings by outsourcing or 
privatization, but still meet our stewardship responsibilities. Without 
further review, however, it would be premature to suggest any 
alternative.
    Question. Do you believe that it would be practical to remove 
environmental compliance funding for DOD facilities from the DOD 
budget?
    Answer. Environmental compliance costs should remain in the DOD 
budget where there is a causal connection between compliance and 
contamination. Early planning in weapons systems development and other 
acquisitions now consider compliance costs in life-cycle cost 
accounting to encourage smarter choices early in the programs, and 
reduce unexpected cleanup costs in the end. As is the case with 
industry, compliance costs should be incorporated in the business model 
to provide better visibility of true life-cycle cost. Such early 
planning would also consider noise, air quality, and other compliance 
issues to ensure systems can be fielded at our current bases and ranges 
without significant impact to the environment or surrounding 
communities. Completely decoupling compliance and cleanup by removing 
them from the DOD budget would make it difficult to encourage this type 
of early planning.
    Question. Do you believe the Department should not be required to 
pay for environmental damage it causes?
    Answer. Relieving DOD from the requirement to pay for environmental 
damage it causes could seriously erode public trust, which could lead 
to restrictions on necessary training and readiness activities.
    Question. What incentives would it create for DOD activities if we 
were to relieve the Department of the requirement to pay for the 
damage?
    Answer. See response above.
                          incremental funding
    Question. In the fiscal year 2000 budget request, the previous 
administration proposed to shift from the traditional full funding of 
military construction projects to an incremental funding approach. This 
proposal was unanimously rejected by the four congressional defense 
committees. Congress has itself abandoned the full funding approach for 
the construction of some naval vessels.
    What are your views regarding full funding versus incremental 
funding?
    Answer. Full funding for capital acquisition programs provides 
discipline to the Department's internal programming process. If 
confirmed, however, I will give careful consideration to innovative 
methods of meeting future requirements and look forward to working with 
this committee.
                        savings from competition
    Question. DOD has substantially increased the number of public-
private competitions in recent years in order to achieve greater 
efficiency and effectiveness while reducing costs. Studies have shown 
that DOD saves money regardless of which side wins the competition.
    Do you believe that outsourcing of work currently performed by 
government civilians should be assessed through public-private 
competition or conducted on a non-competitive basis?
    Answer. Opening government functions to competition to the fullest 
extent possible is the best way to ensure market-based pricing, 
encourage innovation, and maintain fairness between the public and 
private sectors. In assessing outsourcing, I believe the Department 
should use an open competitive process (considering both public and 
private sources) to choose the providers, except in very limited 
circumstances.
    Question. What steps should the Department undertake to measure the 
actual savings achieved after such competitions?
    Answer. The Department must continue to improve the accuracy and 
responsiveness of this system to allow real time monitoring of savings 
and performance from such competitions. I understand that the 
Department recently updated its tracking software for public-private 
competitions conducted in accordance with OMB Circular A-76. The 
Commercial Activities Management Information System (CAMIS) tracks each 
competition separately and includes various elements of the competition 
that are critical to give us feedback on the process (e.g., bids, 
savings, actual contract costs, affected employees, functions being 
competed).
                         working capital funds
    Question. Are there any changes you would recommend in the policies 
governing working capital funds in the Department of Defense?
    Answer. Working capital funds have proved to be a successful tool 
for identifying the full cost of operations and for encouraging cost 
efficiency in commercial and industrial type functions within the 
Department. If confirmed, I will closely review all of the Department's 
financial programs, and where appropriate, assess any required policy 
changes to working capital funds.
    Question. Do you believe the scope of activities funded through 
working capital funds should be increased or decreased?
    Answer. During the 1990s there have been four major reviews of 
working capital funds and their policies and procedures. The most 
recent studies were conducted in 1997 and again during 1999-2000. These 
studies included a review of the functions now included within the 
working capital funds. In the context of the overall review of the 
Department's financial programs, however, this issue may need to be 
revisited once again.
                           capital budgeting
    Question. The President's budget blueprint released last month 
advocated capital planning for information technology budgets.
    Does the administration plan to examine the expansion of capital 
budgeting for the Department of Defense outside the relatively small 
amounts currently programmed in the working capital funds?
    Answer. This is a matter for further review in the context of the 
ongoing studies. At this time, I do not believe that the Department 
will expand capital budgeting beyond the working capital funds. The 
Department of Defense already employs the principle of capital planning 
in that it considers life-cycle costs, schedule and performance prior 
to proceeding with a capital investment. Moreover DOD evaluates capital 
investment decisions against capital planning criteria. For example, 
the Department budgets for capital investments, including IT 
investments, separately from personnel and operation and maintenance 
expenses.
                     outlay estimating differences
    Question. In the past 3 years, outlay estimating differences 
between the Department of Defense and Office of Management and Budget 
estimates prepared in the executive branch and the Congressional Budget 
Office estimates used by the legislative branch have grown to record 
levels.
    If confirmed as Comptroller, will you ensure that your office makes 
every effort to work with OMB and CBO to minimize these estimating 
differences?
    Answer. If confirmed, I will ensure that my office continues to 
strive to improve its estimating of outlays, and will continue to make 
every effort possible to work with both OMB and CBO to minimize 
estimating differences in the future.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense, Comptroller?
    Answer. I believe that there are two primary challenges confronting 
the next Comptroller:
    First, the Comptroller must prepare and manage a budget that 
simultaneously supports the welfare and morale of our men and women in 
uniform; finances the operational requirements of our forces; supports 
a forward looking research and modernization program to meet the 
challenges of the new century, and does all of the foregoing within 
constrained resources.
    Second, the Comptroller must reform the Department's financial 
management system. Only through such reform can the departmental 
leadership have ready access to necessary information and accounts that 
are critical both for executing the defense program in the most 
efficient manner possible, and for ensuring that programmatic choices 
are more easily identified and implemented.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work closely with the office of 
Program Analysis and Evaluation to formulate a program and budget that 
addresses the multiple needs I outlined in the answer above. In 
addition, if confirmed, I will consider possible organizational changes 
in order to strengthen top level management in the Comptroller's 
office. In particular, these changes would seek to foster rapid 
improvements to the management of the Department's finances, 
particularly its accounting and management information systems, as well 
as a more comprehensive approach to solutions that out-sourcing might 
offer.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Department of Defense?
    Answer. The Department of Defense has experienced a weakening of 
the linkage between overall strategy, programs, and budgets. In 
addition, the Department has been underfunded, despite the relief 
offered by supplemental appropriations. Indeed, the need to resort to 
supplemental appropriations to cover shortfalls of projected budgetary 
needs itself has distorted the nature of the budgetary process. 
Finally, the Department of Defense continues to suffer from the absence 
of an adequate management information system, and from inadequate 
financial management systems, especially accounting systems.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed as Comptroller, I would work closely with 
other offices in OSD and the Services to craft programs and budgets 
that respond to the results of Secretary Rumsfeld's strategy review.
    If confirmed, I hope to oversee the preparation of defense budgets 
that adequately fund the programs the Department seeks to implement, 
thereby minimizing the need for maintaining the current, and in my view 
unhealthy, over-reliance on supplemental appropriations.
    Finally, as I indicated in my previous answer, I am considering 
management changes in the top level of the Comptroller's office to 
focus more attention and, more important, to implement, changes to the 
Department's financial management systems. If confirmed, I would move 
quickly to evaluate organizational alternatives and implement a 
preferred solution. I would also hope to have initiated new management 
reforms before the end of this fiscal year or shortly thereafter.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of 
Defense, Comptroller?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
             Question Submitted by Senator Mary L. Landrieu
    Senator Landrieu. Dr. Zakheim, as ranking member of the Senate 
Appropriations District of Columbia Subcommittee, I was surprised to 
learn that the Department of Defense has refused to pay over $28 
million it owes for water and sewer services provided by the District 
of Columbia between 1990 and 2001. I'm sure you're not aware of this 
but I want you to know that DOD is the only Executive Branch agency 
that has failed to comply with Public Law 101-168, as amended, which 
requires Federal agencies to make payment in full for water and sewer 
services provided by the District. On July 25, 2000, GAO issued a legal 
opinion stating that Federal agencies are required to make the payments 
and have no discretion to do otherwise. DOD has maintained that the 
District's estimates of water and sewer usage are excessive and based 
on poor metering, yet they refused to permit newer, more accurate 
meters to be installed until March 2001, citing security concerns.
    It is my understanding that the Comptroller's office and DOD IG are 
aware of this issue and, once confirmed, I would like you to personally 
look into this matter and provide this committee, within 30 days of 
confirmation, a plan for making payment in full on these overdue bills.
    Dr. Zakheim. Over the past year this office has been actively 
engaged in seeking a solution to this issue. The table that follows 
provides detailed information on the current status of the DC Water 
Bill. To understand the whole problem it is useful to consider 
separately the portion of the bill attributable to customers located in 
Maryland and DC and the portion associated with users in Northern 
Virginia. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    DOD customers in DC and Maryland have been charged for water and 
sewage services using meter readings. The DOD customers disputing the 
bill use one or more of the following arguments: (1) the meters are 
broken or inaccurate, (2) the practice of adjusting current year 
estimated billings for actual use from 3 years prior is unsupportable, 
and/or (3) the Department of Treasury has not fully credited them for 
actual payments. It turns out each of these arguments is insufficient 
grounds to withhold full payment. The Treasury is working with the Navy 
to track down payments that may have not been properly applied to the 
DC Water account. In any event, the Components have been directed to 
pay in full the amount they owe for fiscal year 2001. They are also 
working to identify unobligated prior year balances that can be used to 
pay off arrearages.
    DOD customers in Northern Virginia receive water from DC WASA 
through two conduits that run underneath the Key Bridge and pump water 
into the Federally Owned Water Main (FOWM). Federal customers on the 
FOWM include the Army (Fort Myer), the Department of Veterans Affairs 
(Arlington National Cemetery), Washington Headquarters Services (the 
Pentagon Reservation), and the Department of Interior (National Park 
Service sites along the George Washington Parkway). The Ronald Reagan 
National Airport also receives water off of the FOWM and is separately 
billed by DC WASA. The DOD has disputed the Treasury billing for DOD in 
Virginia because there was no attempt made to allocate the bill to the 
separate Federal users in Virginia. Until May of this year, Treasury 
issued three invoices (Fort Myer, Washington Headquarters Service (for 
the Pentagon) and Arlington National Cemetery) charging each entity the 
full amount. The Treasury invoices made no attempt to separately 
allocate use by customer on the FOWM. The three entities received this 
bill and paid Treasury what they each estimated they owed. When added 
together, the three payments fell far short of the total billed and 
resulted in annual arrearages of approximately $1.0 million a year.
    The DC WASA has been working to develop a methodology for 
allocating the Virginia billing to Federal customers. As a result of 
their work, the Treasury issued to all the Virginia customers a revised 
fiscal year 2001 bill with separate estimates for each DOD customer. 
For the first time, Treasury has issued an invoice to the Department of 
the Interior for National Park Service customers in Northern Virginia. 
The efforts of DC WASA to provide estimated allotments goes a long way 
toward solving the most intractable aspect of this problem. Using the 
same estimates of customer use in Northern Virginia, Treasury intends 
to allocate the prior year arrearages to the four Federal customers.
    DOD customers will pay the full revised fiscal year 2001 bill by 
the July 2, 2001 due date. The Components have also been directed to 
pay off as much of the prior year arrearages as possible by the end of 
fiscal year 2001. Depending on how aggressively the Components reduce 
their prior year arrearages, and how successful they (especially the 
Navy) are in working with Treasury to properly credit all their 
payments, any remaining balance due will be a current year bill. Given 
the challenges the Department faces in the current fiscal year, we 
propose to direct the Components to pay off the entire past due amounts 
next year using fiscal year 2002 funds. For the portion of the past due 
bill attributable to WHS as executive agency for the Pentagon 
Reservation, we propose that they levy the bill to the Pentagon tenants 
by applying a surcharge to fiscal year 2002 rent billings.
                                 ______
                                 
    [The nomination reference of Dr. Dov S. Zakheim follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                    March 13, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. Dov S. Zakheim of Maryland, to be Under Secretary of Defense 
(Comptroller), vice William J. Lynn III, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Dov S. Zakheim, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. Dov S. Zakheim
    Dov S. Zakheim is Corporate Vice President of System Planning 
Corporation (SPC), a high technology, research, analysis and 
manufacturing firm based in Arlington, Virginia. He is also Chief 
Executive Officer of SPC International Corporation, a subsidiary of SPC 
that specializes in political, military and economic consulting, and 
international sales and analysis. He is an Adjunct Senior Fellow for 
Asian Studies of the Council on Foreign Relations, and Adjunct Scholar 
of the Heritage Foundation, and a Senior Advisor at the Center for 
International and Strategic Studies.
    Dr. Zakheim was born and raised in New York City. He is a graduate 
of Columbia University, New York, where he earned his B.A., Summa Cum 
Laude, and was elected to Phi Beta Kappa, Dr. Zakheim also studied at 
the London School of Economics. Dr. Zakheim earned his doctorate in 
economics and politics at St. Antony's College, University of Oxford, 
where he was a National Science Foundation Graduate Fellow, a Columbia 
College Kellett Fellow, and a post-doctoral Research Fellow. He has 
served as Adjunct Professor at Yeshiva University; the National War 
College and Columbia University, where he taught classes in planning 
and programming for national security; and at Trinity College, 
Hartford, CT, where he was also a Presidential Scholar.
    In 1997 he was appointed by former Secretary of Defense William 
Cohen to the Task Force on Defense Reform. In May 1998 Secretary Cohen 
named him to the first Board of Visitors of the Department of Defense 
Overseas Regional Schools. In February 2000 he was appointed to the 
Defense Science Board Task Force on the Impact of DOD Acquisition 
Policies on the Health of the Defense Industry. During the 2000 
presidential campaign Dr. Zakheim was a senior foreign policy advisor 
to Gov. George W. Bush.
    From 1985 until March 1987, Dr. Zakheim was Deputy Under Secretary 
of Defense for Planning and Resources. In that capacity, he played an 
active role in the Department's planning, programming and budget 
process, as well as DOD's system acquisition and strategic planning 
processes. Dr. Zakheim guided Department of Defense policy in a number 
of international economic fora and also successfully negotiated 
numerous arms cooperation agreements with various U.S. allies. Dr. 
Zakheim served for two terms as former President George Bush's 
appointee to the United States Commission for the Preservation of 
America's Heritage Abroad.
    Dr. Zakheim also served in the Reagan administration in a variety 
of other senior Department of Defense posts from 1981 through 1985. He 
had previously been Principal Analyst with the National Security and 
International Affairs Division of the Congressional Budget Office.
    Dr. Zakheim writes, lectures, and provides media commentary on 
national defense and foreign policy issues domestically and 
internationally, including appearances on major U.S. network news 
telecasts, CNN's Newshour and Larry King Live, BBC Arab and World 
Service, and Israeli, Swedish and Japanese television. He is a 
columnist for the Jerusalem Post, a regular contributor to Defense 
News, and an editorial board member of Israel Affairs, The Round Table 
(the Commonwealth Journal of International Affairs) and Cooperation and 
Conflict (Nordic Journal of International Studies). He is the author of 
Flight of the Lavi: Inside a U.S.-lsraeli Crisis (Brassey's, 1996), 
Congress and National Security in the Post-Cold War Era (The Nixon 
Center, 1998), Toward A Fortress Europe? (Center for Strategic and 
International Studies, 2000) and has published numerous articles and 
chapters in books on planning, programming and budgetary issues and 
other national security concerns.
    Dr. Zakheim has twice been awarded the Department of Defense 
Distinguished Public Service Medal (1986 and 1987) and is also the 
recipient of the Congressional Budget Office Director's Award for 
Outstanding Service (1979), and the SPC Director's Award for 
Outstanding Service (1997).
                                 ______
                                 

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Dov S. 
Zakheim in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Dov S. Zakheim.

    2. Position to which nominated:
    Under Secretary of Defense and Comptroller.

    3. Date of nomination:
    March 13, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 18, 1948; Brooklyn, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Deborah Bing Zakheim.

    7. Names and ages of children:
    Keith Zakheim, 26; Roger Zakheim, 23; Scott Zakheim, 18; Stepson 
Benjamin Lowy, 21.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Yeshiva University High School, 9/62-6/66; N.Y. Regents Diploma.
    Columbia College, Columbia University, 9/67-6/70; B.A. 6/70.
    Jewish Theological Seminary, 9/67-6/68 and 9/69-6/70.
    London School of Economics, 9/68-6/69; year abroad.
    Jews College, University of London 9/68-6/69; year abroad.
    St. Antony's College, Oxford University, 9/70-6/74; Ph.D. 6/74.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Corporate Vice President, System Planning Corporation, Arlington, 
VA, 3/87 to present.
    Chief Executive Officer, SPC International Corp., Arlington, VA, 
1989 to present.
    Adjunct Presidential Fellow, Trinity College, Hartford, CT, fall 
1998.
    Adjunct Professor of Political Science, Stern College for Women at 
Yeshiva University, New York, NY, fall 1995.
    Adjunct Professor of International and Public Affairs, Columbia 
University, New York, NY, spring 1995 and fall 1996.
    Adjunct Professor, National War College, Washington, DC., fall 
1992.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Consultant to the Secretary of Defense and Under Secretary for 
Policy.

    2000--Member, Defense Science Board Task Force on the Impact of DOD 
Acquisition Policies on the Health of the Defense Industry.
    1998-Present--Member, Board of Visitors of the Department of 
Defense Overseas Regional Schools.
    1997--Secretary of Defense Task Force on Defense Reform.
    Fall 1992--Adjunct Professor, National War College.
    1985-87--Deputy Under Secretary of Defense for Planning and 
Resources.
    1984-85--Assistant Under Secretary of Defense (Policy/Resources).
    1982-83--Special Assistant to Under Secretary of Defense (Policy).
    1981-82--Special Assistant to Assistant Secretary of Defense 
(International Security Policy).
    1978-81--Principal Analyst, National Security and International 
Affairs division, Congressional Budget: Office.
    1975-78--Associate Analyst, National Security and International 
Affairs Division, Congressional Budget Office.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    System Planning Corporation: Corporate Vice President 1987-present.
    SPC International Corp. (subsidiary of System Planning 
Corporation): CEO 1989-present.
    Northrop-Grumman Electronic Sensors and Systems Sector: Member, 
Advisory Board.
    Trinity College: Presidential Fellow, Fall 1998.
    Columbia College, Columbia University: Adjunct Professor of 
International and Public Affairs, spring 1995 and fall 1996.
    Stern College for Women, Yeshiva University: Adjunct Professor of 
Political Science, fall 1995.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Foreign Policy Research Institute: member, Board of Trustees.
    Nixon Center for Peace and Freedom: member, Advisory Board.
    Center for Security Policy: member, Advisory Board.
    Council on Foreign Relations: Adjunct Fellow.
    Heritage Foundation: Adjunct Scholar.
    Center for Strategic and International Studies: Senior Advisor.
    Search for Common Ground: Board member.
    Israel Affairs (Academic Journal): member, Advisory Board.
    The Roundtable. Commonwealth Journal of International Affairs: 
member, Advisory board.
    Conflict and Cooperation (Nordic Journal of International Studies): 
member, Advisory Board.
    Friends of the Jewish Chapel, United States Naval Academy: Board 
member.
    American Friends of Beth Hatefusoth (Museum of the Diaspora): Board 
Member.
    American Jewish Committee: Member, National Advisory Committee.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    National Republican Senatorial Committee: Life member.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $2,000 to the campaign of Governor George W. Bush.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Phi Beta Kappa.
    New York State Regents Scholarship.
    National Science Foundation Graduate Fellow.
    Columbia College Kellett Fellow.
    Post-doctoral Research Fellow, St. Antony's College.

    Twice awarded the Department of Defense Distinguished Public 
Service Medal.
    Congressional Budget Office Director's Award for Outstanding 
Service.
    System Planning Corporation Director's Award for Outstanding 
Service.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Retained in committee files.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Retained in committee files.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Dr. Dov S. Zakheim.
    This 14th day of March, 2001.

    [The nomination of Dr. Dov S. Zakheim was reported to the 
Senate by Senator John Warner on May 1, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 1, 2001.]
                              ----------                              

    [Prepared questions submitted to Charles S. Abell by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                  April 12, 2001.  
Hon. John Warner,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Thank you for providing me the opportunity to 
respond to your questions on defense policy issues. Enclosed are my 
responses.
    I look forward to my appearance before the Senate Armed Services 
Committee and I stand ready to answer any further questions you may 
have.
            Sincerely,
                                   Charles S. Abell.
cc: Senator Carl Levin,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of the defense reforms. 
The establishment of the unified and specified combatant commands, the 
delineation of responsibilities, and most importantly, the focus on 
``jointness'' outlined in the Goldwater-Nichols Department of Defense 
Reorganization Act of 1986, has enhanced the readiness and warfighting 
capabilities of the U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have changed the way the Department of 
Defense works by strengthening the role of the Chairman of the Joint 
Chiefs of Staff and the combatant commanders, and significantly 
improving the ability of the Department to execute America's national 
security strategy. The reforms have helped improve communication, joint 
operations and interoperability--we have strengthened the Armed Forces 
through these reforms through joint planning and execution of 
operations.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted below to be an 
important aspect of these defense reforms. Each one has enhanced the 
ability of the Department of Defense to carry out its assigned 
responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
                                 duties
    Question. Section 138 of Title 10, United States Code, provides 
that the duties of the Assistant Secretary of Defense for Force 
Management Policy are to be prescribed by the Secretary of Defense.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. If confirmed, I believe that Secretary Rumsfeld would 
intend that I be his senior policy advisor on matters concerning the 
management of military and civilian personnel and the welfare of their 
families. I would expect to work under the direction of the USD(P&R) to 
promulgate and oversee policies relating to recruiting, retention, 
career development, compensation, quality of life, equal opportunity 
and other force management concerns. I understand the duties of the 
Assistant Secretary are prescribed in DOD Directive 5124.5 and that I 
would perform duties as set forth in that Directive.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Defense for Force Management Policy?
    Answer. Certainly recruiting and retaining men and women with the 
capability and character to ensure success in a demanding national 
security environment are the greatest challenges. They are challenges 
the Department faces in both its military and civilian forces.
    As the number of individuals in the American public who have 
military experience declines, and as high school students increasingly 
choose to pursue other opportunities upon graduation, the Department of 
Defense must be able to compete for talented young people. The 
Department also needs to retain the best of its force, particularly in 
such fields as aviation and information technology. Providing a strong 
quality of life for service members and their families and a quality of 
service that inspires and motivates top performance is critical to that 
effort. In addition, we must acknowledge that today's youth have 
different expectations of the work experience. The All Volunteer Force 
has served America well. We need to ensure that we have the right tools 
to manage this force for the future.
    The Department also needs to take actions to revitalize its 
civilian workforce. Due to the increasing numbers of civilians reaching 
retirement eligibility, it is necessary to ensure that there is a base 
of workers with the qualifications needed to manage the complex 
programs and technologies of today and of the future. Managers need to 
have the tools to recruit, retain, and develop the future workforce.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will review current policies and 
initiatives in the above areas to determine their effectiveness and 
where adjustments may need to be made to accomplish these goals. I also 
expect to incorporate the results of Secretary Rumsfeld's ongoing 
quality of life review into an overall strategy to address these 
issues.
                     reserve component health care
    Question. The Department of Defense is relying more on the Reserve 
components as it attempts to reduce the operational tempo of the Active 
Forces. Although the Department of Defense has made great strides in 
integrating the Reserve components into the Total Force and providing 
for the individual reservist, families of Reserve component service 
members still face challenges when the spouse is called to active duty. 
Among those challenges is medical care. Although the law allows for 
continuing health care under a civilian employer, the cost to a Reserve 
member may become prohibitive. If the member elects military health 
care for his family while on active duty, it may require a change in 
health care provider.
    What are your views regarding this dilemma facing our reservists?
    Answer. Under the Uniformed Services Employment and Reemployment 
Rights Act, employers must allow reservist employees to continue under 
their civilian employer-sponsored healthcare plan for up to 18 months; 
however, the employer does not have to continue his share of the 
premium, compelling the reservist to pick up the entire premium cost 
and administrative fees. Deployment is stressful enough for Reserve 
families. Changing health care systems and possibly health care 
providers adds to that stress. The Deputy Secretary of Defense recently 
announced a policy to support DOD civilian employees called to active 
duty in support of contingency operations. I believe we should explore 
options to similarly support all reservists.
                     employment of military spouses
    Question. The military community includes more than 700,000 
spouses. These spouses play an important role in the retention of their 
military sponsors. Many of these spouses work, whether it is for 
economic needs or to sustain their profession. Many more spouses would 
like to work, however, the constant moving associated with military 
life, in many cases, precludes a meaningful career or profession.
    In your view, what actions can the Department take to provide 
increased employment opportunities for military spouses?
    Answer. There is no doubt we need to do more for spouses. Most 
military spouses are currently working or looking for work. Many 
spouses want a career, but are limited because of frequent relocations. 
I believe it is critical that the Department address this issue, and if 
confirmed, I would ask for an assessment of spouse employment issues 
leading to recommendations for improvement. I do think there is more we 
can do to assist relocating spouses who are seeking employment, 
particularly through partnerships with major employers. Part of this 
assessment would be to identify policy changes that might make it 
easier to pursue employment within the Department of Defense. However, 
I believe we also need to continue to explore partnerships with major 
employers, the degree to which our spouses have skills to match their 
employment needs, and whether there is any way we can help provide a 
better match of skills-to-need for America's employers.
                             family support
    Question. Approximately two-thirds of our military families live 
off of the military installation. Since deployment and family 
separation are two of the most demanding parts of military life, the 
Department of Defense must ensure that it provides the same level of 
support to families that live off the installation as it does to those 
who live on base.
    In your view, does the Department have adequate programs in place 
to ensure support for those families off the installation?
    Answer. Over the past years, the Department of Defense has done a 
superb job designing and delivering programs to support military 
families. I am not aware of any specific concerns regarding support to 
off-base families, but I believe the Department can do more for these 
families by leveraging technology to deliver services and information 
through the Internet. I also believe it is important to ensure that our 
families can communicate in this manner during deployments. I also 
think it would be important to create strong and effective partnerships 
with local communities and non-profit organizations to deliver 
assistance and services.
                     civilian personnel management
    Question. The management of civilian employees in DOD has largely 
been done on a hit-or-miss basis, particularly with respect to senior-
level employees.
    Has the Department conducted any audit of Senior Executive Service 
positions?
    Answer. I am not aware of any specific audits the Department of 
Defense may have conducted of its senior workforce. The President has 
asked Federal agencies to establish procedures to review and approve 
hiring decisions for supervisory and managerial jobs. As I understand 
it, this guidance is being implemented within the Department of 
Defense.
    Question. In your opinion, are there sufficient opportunities for 
advancement within the Department for senior career civilians?
    Answer. I am sure that the demands of the Department of Defense 
continually create opportunities for talented people. With an 
increasing number of civilians becoming eligible for retirement over 
the next several years, an increased number of opportunities for 
advancement should become available.
                    judge advocate continuation pay
    Question. The Department has now had some experience with 
implementation of the Judge Advocate Continuation Pay which was 
authorized in the National Defense Authorization Act for Fiscal Year 
2000.
    Has this special pay performed its intended purpose of retaining 
mid-career judge advocates?
    Answer. It is my understanding that DOD is encouraged by the 
initial results of the Judge Advocate Continuation Pay and that in some 
cases the take-rate has been even higher than expected.
    Question. Is further legislation needed?
    Answer. This is something I plan to take a close look at, if 
confirmed. It is my understanding that the bonus is working well to 
retain those who already are serving. Whether the quality and quantity 
of new accessions are sufficient to meet future needs is a matter of 
equal importance.
                       officer management issues
    Question. Do you believe the officer corps has confidence in the 
integrity of the officer promotion system in the military services?
    Answer. Yes. I believe the majority of officers serving in our 
military services today have confidence in the integrity of the officer 
promotion system.
    Question. What role would you, as Assistant Secretary of Defense 
for Force Management Policy, expect to play in the officer promotion 
system?
    Answer. If I am confirmed, I intend to be completely involved in 
providing policy oversight of the officer promotion process. I expect 
to be directly responsible to the Under Secretary of Defense for 
Personnel and Readiness in carrying out his duties and responsibilities 
with regard to the officer promotion system, and to ensure the 
Department has provided clear policy guidance to the military services 
which provides for reliability and consistency in the selection board 
process.
    Question. What role would you, as Assistant Secretary of Defense 
for Force Management Policy, expect to play in the general officer 
management and nomination process?
    Answer. If confirmed, I expect to be involved in the general and 
flag officer promotion process. I will be responsible to the Under 
Secretary of Defense for Personnel and Readiness to provide oversight 
of the Department's efforts to comply with and implement applicable 
laws and policies in the general and flag officer management and 
nomination process.
    Question. If confirmed, would you make the matter of senior officer 
investigations a priority for your review and action?
    Answer. Yes. I will place a priority on the timeliness and 
thoroughness of investigations of senior officers in conjunction with 
promotion and retirement actions.
    Question. If confirmed, what actions would you take to ensure that 
the services provide timely notice of potentially adverse information 
regarding nominees for general and flag officer promotions?
    Answer. If confirmed, I will fully commit to providing oversight of 
the adverse information reporting process to ensure the committee is 
provided proper and timely notification of ongoing investigations and 
potentially adverse information pertaining to nominees for general and 
flag officer promotion.
                               recoupment
    Question. There are at least 19 separate provisions of law 
concerning the service obligation incurred by individuals for 
government funded education, training programs, and various bonuses. 
Your predecessor testified that he would review these legislative 
provisions and recommend legislative changes to bring order and 
consistency to these requirements. To date, no such recommendations 
have been received.
    Do you support recoupment of the residual value of an education, 
training program or bonus paid in return for a service commitment?
    Answer. Yes, as a general rule, when the service commitment was not 
carried out and the military member was clear about this possibility as 
part of his or her military contract.
    Question. Will you assure this committee that, if confirmed, you 
would conduct the review your predecessor agreed to conduct and 
recommend appropriate legislative changes?
    Answer. If confirmed, I will review recoupment policies and provide 
the Secretary with my judgment as to the need for any needed 
legislative changes.
                        recruiting and retention
    Question. The end of year statistics assessing the military 
services' success in recruiting and retention were released by the 
Department of Defense in October 2000. These figures, while not as bad 
as earlier predictions, do not in all cases achieve the authorized end 
strengths.
    What steps would you take, if confirmed, to assist the services in 
meeting their recruiting and retention goals?
    Answer. First, with regard to recruiting, I would take full 
advantage of the change to last year's Authorization Act sponsored by 
Senator Hutchinson. I would help the services gain access to high 
schools by personally and productively engaging with local educational 
agencies, in cooperation with state agencies and the Department of 
Education, to ensure current laws are followed. I also would ensure 
that the services are working under a coordinated plan, to ensure that 
school officials fully understand the opportunities military service 
offers to their graduates. Finally, I would ensure that we have aligned 
plans and resources in a way that allows us to effectively penetrate 
the growing college market.
    Clearly we must be successful in recruiting quality people, but 
continued attention to what it takes to keep them serving is essential 
for force readiness. We must not lose sight of the fact that retention 
is not just about the service members, but about their families as 
well. Quality of life is key to retaining a service member and his or 
her family. Our men and women in uniform recognize they will never 
become wealthy as a member of the Armed Forces, but they expect a 
standard of living with opportunities for individual and family growth 
comparable to their civilian counterparts. Consequently, I would ensure 
we keep a sharp focus on pay and compensation issues.
    Pay and compensation alone will not address all the problems 
service members face. Service members understand time away is part of 
the profession, but I believe we should carefully balance deployments 
and the associated military training requirements with the stability 
necessary for the long-term health of military families. A continued 
focus on enhancing predictability, distributing missions carefully 
within the ``Total Force,'' and protecting quality of life during the 
inter-deployment period is critical.
    There is no single solution to guarantee the level of retention 
required to ensure a ready force. Retaining our best people will 
require a combination of initiatives aimed at enhancing the quality of 
family life and quality of service conditions.
    Question. Recent emphasis regarding recruiting and retention has 
been focused on the active component. The Reserve components are facing 
even greater challenges in these areas. What steps would you take, if 
confirmed, to assist the Reserve components in achieving their 
recruiting and retention goals?
    Answer. To maintain a world class fighting force, we must rely on 
the Reserve component of the ``Total Force.'' We can't have one without 
the other.
    With regard to Reserve recruiting, I would ensure that 
opportunities in the Reserve components are well known to those 
individuals from the active services who choose to separate 
voluntarily, as a means of keeping them in uniform. I also would ensure 
that ``lessons learned'' and best business practices are effectively 
exchanged between the active and Reserve components. The same is true 
with respect to assisting the Reserve components with achieving their 
retention goals.
                  anthrax vaccine immunization program
    Question. DOD considers the biological agent anthrax the most 
serious biological weapon threat to our military force. Tasteless, 
odorless, colorless and difficult to detect, anthrax is easy to produce 
in large quantities and remains viable over long periods of time. The 
Anthrax Vaccine Immunization Program (AVIP) was initiated by the 
previous Secretary of Defense after the recommendation of the Chairman, 
the Joint Chiefs of Staff and the Commanders of Korea and Central 
Command. To date, more than 500,000 members have been inoculated using 
over 2 million doses. Since July 2000, the program has undergone two 
slowdowns because of limited quantities of FDA-approved vaccine.
    If confirmed, and if additional FDA-approved vaccine becomes 
available, do you plan to reimplement and continue the Anthrax 
Vaccination Immunization Policy?
    Answer. As I understand it, Secretary Cohen decided to implement 
this program on the advice of the Chairman of the Joint Chiefs of Staff 
and the Commander-in-Chief, Central Command and Commander-in-Chief, 
U.S. Forces Korea. If confirmed, I expect to examine, with my 
colleagues in the Department, all aspects of the program carefully to 
determine the best approach.
    Question. How do you believe the Department should respond to 
service members who refuse to take the vaccine when required to do so?
    Answer. I know anthrax kills. I am convinced that our enemies have 
the ability to deliver anthrax spores on our forces. I believe it would 
be irresponsible not to take every step possible to protect our service 
members from any known threat. In providing such protection, it is 
important that the Department and the military services earn the trust 
of service members that the protective measures are safe and effective. 
I believe that the Department will ensure that the current and any 
future anthrax immunization will be safe, effective and have been 
approved by the appropriate government agencies. I also believe that 
the Department is committed to pursue new vaccine technologies in order 
to protect our military personnel against anthrax and other biological 
agents or disease.
                       homosexual conduct policy
    Question. The current Department of Defense Homosexual Conduct 
Policy went into effect in February 1994 after months of congressional 
hearings and debate resulting in the enactment of a Federal statute. 
Although there have been some changes in how this policy has been 
implemented, the basic policy has not been changed.
    Do you believe the current policy is effective? If confirmed, do 
you plan to make any changes to the basic policy or its implementation? 
If so, what changes would you propose?
    Answer. I believe that the statute in this area is very clear. 
Consistent with Secretary Rumsfeld's previous statement, and with what 
President Bush said during the campaign, there are no plans to 
recommend changes to either current law or policy.
    Question. A DOD working group of senior military and civilian 
representatives from each of the military services recently proposed an 
action plan to address the problem of harassment based on perceived 
sexual orientation and other issues raised by the Inspector General. 
The review resulted in a 13-point action plan to eliminate all forms of 
harassment. The Department announced that it would issue a Department-
wide directive on this subject.
    Do you support the 13-point plan issued by the Secretary's working 
group? Will you ensure that the Department issues and enforces an 
appropriate directive to implement and enforce the plan?
    Answer. I believe that harassment in any form is inconsistent with 
military values and needs to be dealt with quickly and effectively by 
military leaders. If confirmed, I will review the findings of the 
working group and recommend actions that should be taken as a result.
                           montgomery gi bill
    Question. Almost all new service members enroll in and contribute 
to the Montgomery GI Bill. Only about half use their benefits, and many 
do not use all of their entitlement. Many of these soldiers, sailors, 
airmen, and marines say they would like to stay in the service, but 
feel they have to leave so that they can provide for the education of 
their spouses and children. Some of these service members would stay in 
the service if they could transfer all or a part of their unused 
entitlement to GI Bill benefits to family members in return for a 
service commitment. Service Secretaries could use this retention tool 
selectively, just as they use reenlistment bonuses.
    If confirmed, will you give serious consideration to how the 
Department of Defense could use the transfer of unused GI Bill benefits 
to family members as a retention tool and provide your thoughts on how 
we best do this?
    Answer. This is a serious proposal and one, among others, we should 
carefully consider.
                       gender integrated training
    Question. Basic training, which may be the single most important 
phase of an individual's life in the military, is structured and 
defined differently by each service. Men training for direct ground 
combat positions in the Army and Marine Corps train in all-male units. 
Men and women training to serve in positions that are open to women in 
the Army, Navy, and Air Force train in gender-integrated units. Men and 
women in the Marine Corps are segregated at boot camp, then integrated 
during subsequent training.
    Do you believe the current DOD policy of allowing each of the 
services to establish its own policy for gender integration in basic 
training is effective?
    Answer. I believe the test of whether basic training is 
accomplishing its goal is whether it is producing the qualified 
soldiers, sailors, airmen, and marines required for our forces and the 
fleet. Service Chiefs and CINCs are the best judge of recruits coming 
out of basic training. If confirmed, I would like to consult with these 
senior leaders for their assessment.
    Question. If confirmed, would you propose changes to the DOD or 
service policies? If so, what changes will you propose?
    Answer. As noted above, I would want to consult with the Service 
Chiefs and CINCs before making any recommendations to the Secretary.
                           concurrent receipt
    Question. Military retirees with disabilities incurred during their 
military service are eligible to receive military retired pay from the 
Department of Defense and veterans' disability compensation from the 
Department of Veterans' Affairs. However, current law requires that 
military retired pay be reduced by the amount of the veterans' 
benefits. Military retirement pay and disability compensation were 
earned and awarded for different purposes. Military retirees earned 
their retirement by dedicating 20 or more years of service to our 
Nation's defense. Disability compensation is awarded to compensate 
veterans for injuries incurred in the line of duty.
    If confirmed, would you support a change in the law to permit 
disabled military retirees to receive their full retired pay as well as 
their disability compensation?
    Answer. I recognize that this is a long-standing concern of 
military retirees and the Department of Defense alike. I am aware that 
the Department has traditionally opposed the idea of concurrent 
receipt. If concurrent receipt were to be approved there would be a 
funding impact within the Department, which would affect quality of 
life and readiness programs.
         conversion of military positions to civilian positions
    Question. Whenever Defense organizations undergo staffing changes, 
a review is conducted to determine which positions are ``military 
essential'' and which positions can be converted to civilian positions. 
However, there is no systematic process to review positions in 
organizations not experiencing such a change to determine whether 
military positions should be converted to civilian positions. In 1997, 
GAO, using DOD and service guidance, determined that 14 percent of 
active duty officer positions were candidates for military to civilian 
conversion.
    If confirmed, would you initiate a review of military positions to 
determine whether they are truly ``military essential'' and identify 
those that can be converted to civilian positions?
    Answer. If confirmed, I would carefully examine all aspects of this 
issue, including any previous studies, to determine whether further 
reviews are necessary.
           management of the congressional fellowship program
    Question. For the past several years, the committee has expressed 
concern about the management of legislative fellows by the military 
departments and the Department of Defense.
    If confirmed, would you review the Department's policies pertaining 
to the management of legislative fellows and provide the committee your 
assessment of which management reforms have been implemented and which 
require additional action?
    Answer. Yes.
    Question. What are your personal views on the value and current 
management of the legislative fellowship program within the Department 
of Defense? Specifically, in your opinion are legislative fellowships 
awarded to deserving military or civilian personnel?
    Answer. I believe the legislative fellowship program is an 
excellent opportunity for outstanding individuals, both military and 
civilian, to observe and gain an understanding of the legislative 
branch of government. I believe legislative fellowships are generally 
awarded to deserving military and civilian personnel with demonstrated 
potential to benefit from the experience.
    Question. Following their fellowship, are legislative fellows 
assigned to positions in their service in which the experience and 
knowledge they gained during their fellowship is used effectively?
    Answer. The Department's directive makes clear that the intent of 
the legislative fellowship program is to assign fellows to follow-on 
tours in which the education gained by the fellowship can be used. If 
confirmed, I will take steps to ensure, that to the maximum extent 
possible, the military services are assigning legislative fellows to 
positions in which his or her experience will contribute to the 
Department or his or her service.
    Question. In your opinion, is it appropriate under the authority in 
Title 10, United States Code, for Reserve component full-time support 
personnel to participate in the legislative fellowship program?
    Answer. Participation of Reserve component full-time support 
personnel in the legislative fellowship program is appropriate only to 
the extent that the fellowship and follow-on assignment are consistent 
with the authorities in Title 10, United States Code.
    Question. If so, how does such an assignment enhance the readiness 
of the Reserve components as required by title 10?
    Answer. While there may be full-time support positions for which 
the experiences of the fellowship could be helpful, if confirmed, I 
would review the Department's policy to ensure consistency with title 
10.
    Question. In your opinion, is it appropriate to bring a Reserve 
component member on active duty solely to participate in a legislative 
fellowship program?
    Answer. Again, there may be occasions when it is appropriate to 
bring a Reserve component member on active duty but, if confirmed, I 
would want to review the Department's policy.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Force Management Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Rick Santorum
    Senator Santorum. Mr. Abell, the 99th Regional Support Command 
(99th RSC), located near Pittsburgh, and Naval Air Station Joint 
Reserve Base, Willow Grove, located near Philadelphia, have each sought 
my support for the construction of a new commissary to serve members of 
their respective military communities.
    I had previously raised the issue of a new commissary for the 99th 
RSC with Richard Beale, the then-director of the Defense Commissary 
Agency (DeCA), and received a less than adequate response from General 
Beale. Do I have your assurance that you will work with DeCA to see 
that requests for the construction of new commissaries in eastern and 
western Pennsylvania are given appropriate attention and consideration?
    Mr. Abell. Yes, I will make sure the DeCA and the Commissary 
Operating Board give appropriate attention and consideration to 
requests for new commissaries in those locations.

    Senator Santorum. Mr. Abell, currently, disabled military retirees 
who receive disability compensation have a portion of their retired pay 
reduced equal to the amount of the compensation. Many in the military 
community believe this is tantamount to forcing disabled stretirees to 
pay their own disability compensation.
    It is my understanding that Senator Hutchinson and Senator Warner 
support efforts to allow military retirees to receive both their full 
retirement pay and their full disability pay. It is also my 
understanding that the cost of this change is significant. In his 
fiscal year 2002 views and estimates letter to Budget Committee 
Chairman Domenici, Senator Warner indicated that changing this 
provision of law will cost $3.8 billion a year in mandatory spending.
    With additional funds needed for military health care costs, pay 
raises, real property maintenance, and recruiting initiatives, where do 
you believe the concurrent receipt problem fits with other unfunded or 
underfunded priorities?
    Mr. Abell. The issue of concurrent receipt is one that presents 
some challenges and deserves further review. There is a perception on 
the part of some retirees that they must pay for their own disability 
compensation. This perception is rooted in the requirement that retired 
military personnel must waive some or all of their retired pay in order 
to receive VA disability compensation. However, the law is clear in its 
prohibition against concurrent receipt. While the law may be clear, I 
believe the important nature of the matter merits reconsideration and a 
comprehensive review. I plan to make such a review as soon as possible.

    Senator Santorum. Mr. Abell, Section 334 of H.R. 4205, the National 
Defense Authorization Act for Fiscal Year 2001, authorized the sale of 
magazines and other periodicals as an authorized merchandise category 
for sale in commissaries. In addition, conferees to the legislation 
directed the Secretary of Defense to promulgate policy guidance that 
would limit the display of magazines and other periodicals in 
commissaries to the immediate area of the checkout lanes.
    A constituent company has shared information with my office 
indicating that DeCA has initiated the process of promulgating guidance 
on the display of magazines and other periodicals in commissaries. Do I 
have your assurance that you will work with DeCA and Maj. Gen. Robert 
Courter to see that the magazine publishing industry has the 
opportunity to have their views and perspective on DeCA's draft 
guidance heard?
    Mr. Abell. Yes, DeCA has invited a number of publishers to a 
meeting to share information on how the industry operates, DeCA 
requirements, and doing business with the Government.
                                 ______
                                 
    [The nomination reference of Charles S. Abell follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 29, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Charles S. Abell of Virginia, to be an Assistant Secretary of 
Defense, vice Alphonso Maldon, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of Charles S. Abell, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Charles S. Abell
    For the past 8 years, Mr. Charles S. Abell has served as a 
professional staff member of the Senate Armed Services Committee.
    Mr. Abell joined the Armed Services Committee staff in 1993, after 
a 26-year career in the Army that began as an enlisted soldier and 
concluded with his retirement as a Lieutenant Colonel.
    He was the lead staffer for the Subcommittee on Personnel, 
responsible for issues concerning military readiness and quality of 
life. Included in this are manpower; pay and compensation; and 
personnel management issues affecting active duty, Reserve and civilian 
personnel; health care; nominations, both military and civilian 
appointees; and the organization and functions within the Department of 
Defense.
    He worked on codification of the ``Don't ask, don't tell'' policy 
prohibiting open homosexuals from serving in the military and 
legislation concerning the assignment of women. In recent years, he has 
had the primary committee responsibility for a broad array of important 
initiatives aimed at restoring cost-of-living adjustment (COLA) equity 
for military retirees and survivors; improving the military health care 
program; upgrading Survivor Benefit Plan coverage; and enhancing pay, 
allowances and retirement programs for Active Duty and Reserve members 
and TRICARE-For-Life, guaranteeing all retires coverage within TRICARE, 
the military health care system.
    During his Army career, Mr. Abell was a Cobra attack helicopter 
pilot--a decorated officer who led an infantry platoon, an infantry 
company and attack helicopter units during two tours in Vietnam. He 
also served command and staff positions at each level of the Army.
    Mr. Abell earned a Bachelor of Science in Political Science form 
the University of Tampa and a Master of Science in Human Resource 
Management from Columbus University.
    Mr. Abell's decorations include the Legion of Merit, 4 Meritorious 
Service Medals, the Purple Heart, 2 Bronze Stars for Valor, 14 Air 
Medals, 2 for valor, the Army Commendation Medal for valor, and the 
Combat Infantryman's Badge.
    He is married to Cathy Abell and resides in Fairfax, Virginia.
                                 ______
                                 

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Charles S. 
Abell in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Charles S. Abell.

    2. Position to which nominated:
    Assistant Secretary of Defense for Force Management Policy.

    3. Date of nomination:
    March 29, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 20, 1946; Sayre, Pennsylvania.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cathy (McCaffrey) Abell.

    7. Names and ages of children:
    Jennifer Ann; 25.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Wyoming Seminary High School--1962-1964--High School Diploma.
    Wake Forest University--1964-1966--None.
    University of Tampa--1975-1976--B.S.
    Columbus University--1998-1999--M.S.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    United States Army Officer--1966-1992.
    Senate Armed Services Committee.
    228 Russell Senate Office Building.
    Washington, DC. 20510.
    Professional Staff Member--1993-Present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member, The Retired Officers Association.
    Life Member, National Rifle Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $500.00 to Bush/Cheney For President--August 1999.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Alpha Chi National Honor Society.
    Militia Award, Enlisted Association of the National Guard of the 
United States--1994.
    TROA Meritorious Service Award, The Retired Officers Association; 
two awards--2000 and 2001.
    Order of Military Medical Merit, Army Medical Department--1998.
    Award of Merit, The Military Coalition--1998.
    Friend of the Regiment, Army Medical Department--1997.
Military Awards:
    Legion of Merit, two awards.
    Bronze Star with ``V'' device, two awards.
    Purple Heart.
    Meritorious Service Medal, four awards.
    Air Medal with ``V'' device, 15 awards.
    Army Commendation Medal with ``V'' device, two awards.
    Good Conduct Medal.
    National Defense Service Medal.
    Armed Forces Reserve Medal.
    Overseas Service Ribbon, two awards.
    Vietnam Campaign Medal.
    Combat Infantryman's Badge.
    Army Aviator Wings.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Charles S. Abell.
    This 12th day of March, 2001.

    [The nomination of Charles S. Abell was reported to the 
Senate by Senator John Warner on May 1, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 3, 2001.]
                              ----------                              

    [Prepared questions submitted to Victoria Clarke by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                  April 19, 2001.  
Hon. John Warner,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Victoria Clarke.
cc: Senator Carl Levin,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. The establishment of the unified and specified combatant 
commands, the delineation of responsibilities, and most importantly, 
the focus on ``jointness'' outlined in the Defense Reorganization Act 
of 1986 have enhanced the readiness and warfighting capabilities of the 
U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have changed the way the Department of 
Defense works by strengthening the role of the Chairman of the Joint 
Chiefs of Staff and the combatant commanders and significantly 
improving the ability of the Department to protect America's security 
and further its vital interests. The reforms have helped improve the 
interaction among the services in conducting military operations by 
making joint operations the norm.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted below to be an 
important aspect of these defense reforms. Each one has enhanced the 
ability of the Department of Defense to carry out its assigned 
responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibilities; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
                            responsibilities
    Question. If confirmed as the Assistant Secretary of Defense for 
Public Affairs, what would you view as your principle responsibilities 
to the Secretary of Defense?
    Answer. The Secretary is committed to an ambitious agenda to 
organize the Department of Defense to more closely reflect and respond 
to the threats of the 21st century. I believe the involvement and 
commitment of the American people is absolutely critical to that 
agenda's successful enactment. If confirmed as the Assistant Secretary 
of Defense for Public Affairs, my over-arching responsibility to the 
Secretary would be to help him ensure the effectiveness of the Nation's 
military by engaging the American people in a national conversation 
about the threats we face and how we respond to them. Success in 
building the military of the future absolutely depends on their 
involvement.
    On a day-to-day basis, I would serve as the principal staff 
assistant and advisor to the Secretary of Defense and the Deputy 
Secretary of Defense for DOD news media relations, public information, 
internal information, community relations, public affairs, visual 
information training, and audiovisual matters.
    Department of Defense directives provide that the Assistant 
Secretary of Defense for Public Affairs will ensure a free flow of news 
and information to the media, appropriate forums, and the American 
people, limited only by national security constraints and statutory 
mandates.
    Question. What guidelines would you use to determine what 
information can and cannot be released to the news media and the 
public?
    Answer. The Assistant Secretary of Defense for Public Affairs has 
responsibility for the security review of Department of Defense 
materials for publication and release, including testimony before 
congressional committees.
    In keeping with these functions, if confirmed, I will ensure 
compliance with the established DOD ``Principles of Information,'' 
which state that the policy of DOD is to make available timely and 
accurate information in order for the public, Congress, and the news 
media to assess and understand the facts about national security and 
defense strategy. I believe the freest possible flow of information--
both to the public and in the context of a close working relationship 
with Congress--will help build the strongest possible public support 
for a robust national defense that meets the threats of the 21st 
century.
    In addition, if confirmed, I will support the Principles of 
Information that have long guided the Department's obligations for 
releasing information. The Principles are published in DODD 5122.5.
    Question. What policy would you intend to follow in carrying out 
these responsibilities?
    Answer. It is Department of Defense policy to make available timely 
and accurate information in order for the public, Congress, and the 
news media to assess and understand the facts about national security 
and defense strategy. If confirmed, I will ensure that this policy is 
continued, that DOD works closely with Congress and that the American 
people are engaged in and committed to the process of changing our 
military to keep pace with changing threats.
    Question. Aside from restrictions related to classified and 
sensitive-source materials, what restrictions, if any, would you apply 
in approving material prepared for release by Department of Defense 
officials?
    Answer. Information will be made fully and readily available, 
consistent with statutory requirements, unless its release is precluded 
by current and valid security classification. The provisions of the 
Freedom of Information Act will be supported in letter and spirit. 
Restricting the flow of information to the public, Congress, or members 
of the Armed Forces would be an impediment to the national consensus I 
believe must be achieved for effective change to occur.
    Information will not be classified or otherwise withheld to protect 
the government from criticism or embarrassment. Information will be 
withheld only when disclosure would adversely affect national security 
or threaten the safety or privacy of the members of the Armed Forces.
    A free flow of general and military information will be made 
available, without censorship or propaganda, to the men and women of 
the Armed Forces and their family members.
    The Assistant Secretary of Defense for Public Affairs should adopt 
the motto: Maximum Disclosure, Minimum Delay. The Department of 
Defense's obligation to provide the public with information on its 
major programs may require detailed public affairs planning and 
coordination within DOD and with other government agencies. The sole 
purpose of such activity is to expedite the flow of information to the 
public. Ensuring accuracy is one of the very few reasons to delay the 
release of information.
                news analysis and news clipping service
    Question. The Assistant Secretary of Defense for Public Affairs has 
responsibility for overseeing the provision of news analysis and the 
news clipping services for the Office of the Secretary of Defense, the 
Joint Staff, and the headquarters of the military departments.
    What policy do you intend to follow, if confirmed, in providing 
news analysis and in determining which news media reports should be 
disseminated throughout the Pentagon?
    Answer. The Early Bird and its sister publications, the Supplement 
and the Radio-TV Dialog, provide the Secretary of Defense and the DOD 
leadership with news clippings from major news publications. The 
purpose of this clipping service is to inform the leadership about what 
the American people are reading and hearing about defense-related 
activities. If confirmed, my policy will be to ensure that this service 
provides the leadership with the best information they need to perform 
their missions and to keep the American people accurately informed 
about the Department of Defense.
                      stars and stripes newspapers
    Question. In recent years, there has been much discussion of and 
policy changes with regard to the independence of the Stars and Stripes 
newspapers.
    If confirmed, what would your role and responsibilities be with 
regard to the Stars and Stripes newspapers?
    Answer. If confirmed, my role will be to provide policy and broad 
operational guidance to the Director of the American Forces Information 
Service, who would be my point of contact with the Stars and Stripes. 
He is responsible for the policy, business, financial, operational, and 
administrative control of the Stars and Stripes. My guidance would be 
directed at ensuring that the Stars and Stripes continues to serve as 
an independent and credible source of news and information to our Armed 
Forces and their families serving overseas.
    Question. In your opinion, what is the role of the Stars and 
Stripes newspapers?
    Answer. The Stars and Stripes is a DOD-authorized daily newspaper 
distributed overseas for the U.S. military community. It provides 
commercially available U.S. and world news and staff-produced objective 
reports relevant to the military community. By keeping our troops and 
their families informed, the newspaper enhances both the readiness and 
the quality of life of its audience.
    The Stars and Stripes is needed because no other daily newspaper is 
available to our troops, wherever they serve overseas, that focuses on 
the military and the activities of the military community, as well as 
focusing on the U.S. and world news that is relevant to this audience. 
In this sense, the Stars and Stripes is the hometown newspaper for our 
overseas servicemen and women and their families.
    Question. In your opinion, are the Stars and Stripes newspapers 
editorially independent?
    Answer. Yes, and there are many safeguards to keep them that way:

        <bullet> The DOD Directive (5122.11) states that the Stars and 
        Stripes is ``editorially independent of interference from 
        outside its editorial chain of command.'' No one at the 
        American Forces Information Service or in my office sees the 
        content of the newspaper until after publication.
        <bullet> The directive also mandates the hiring of a highly 
        qualified journalist whose primary responsibility is to ensure 
        the editorial independence of the newspaper.
        <bullet> The House and Senate Armed Services Committees have 
        provided additional oversight in helping to ensure the success 
        and independence of the Stars and Stripes. The Stars and 
        Stripes Ombudsman has the right to meet independently with 
        these committees whenever he feels it is necessary.
        <bullet> The Society for Professional Journalists serves as an 
        unofficial champion of the editorial independence of the 
        newspaper. An SPJ representative is invited to all Stars and 
        Stripes Board of Directors meetings.

    Question. What restrictions, if any, would you recommend be placed 
on the editorial or reporting staff of the Stars and Stripes 
newspapers?
    Answer. The only limitations on the editorial independence of the 
Stars and Stripes are those that are outlined in the DOD Directive. It 
is my understanding that that directive is currently being staffed 
throughout the Department of Defense to update it. It was last issued 
in 1993. If confirmed, I will review it carefully to ensure it meets 
the standards and objectives I have outlined.
    Question. The function and responsibilities of the Stars and 
Stripes Ombudsman have been the subject of debate and discussion within 
the American Forces Information Service and among journalists outside 
the Department of Defense.
    Do you support an independent Ombudsman?
    Answer. Absolutely. I view the Ombudsman as a safeguard of the 
editorial independence of the newspaper and as a valued proponent of 
the readership in ensuring that information published in the Stars and 
Stripes is fair, accurate, and balanced. The Ombudsman has the 
independence and stature to serve as an honest broker that can 
represent and help educate the editorial staff, readers, Commanders, 
and Public Affairs Officers.
    Question. What guidance would you provide, if confirmed, with 
regard to the role, responsibilities and functions of the Stars and 
Stripes Ombudsman?
    Answer. If confirmed, I will do everything in my power to support 
the independence of the Ombudsman. This independence is currently 
protected by:

        <bullet> DOD Directive.
        <bullet> The Ombudsman reports directly to the Director of 
        AFIS. That means he is not subjected to Command or Public 
        Affairs pressures.
        <bullet> The Ombudsman has direct access to Congress.
        <bullet> The Ombudsman serves a 3-year fixed term. He can't be 
        fired, and his term cannot be extended. This helps protect his 
        independence.
        <bullet> The Ombudsman publishes articles in the Stars and 
        Stripes whenever he deems it necessary and appropriate. 
        Although he may voluntarily send an advance copy to AFIS 
        Director for comment, the Ombudsman has final authority to 
        publish without being edited.

    I support all of these protections.
           press coverage of contingency or combat operations
    Question. In the past 10 years, press coverage of contingency and 
other high and low intensity operations has increased. This increased 
coverage has, many times, resulted in conflicts between the press corps 
and military organizations.
    If confirmed, how would you resolve the tension between the media's 
demand for access and the need to protect certain operational details?
    Answer. If confirmed, it will be my policy that information will be 
withheld only when disclosure would adversely affect national security 
or threaten the safety or privacy of the members of the Armed Forces.
                       freedom of information act
    Question. If confirmed, what would your role and responsibilities 
be with regard to the Freedom of Information Act?
    Answer. As a DOD official, I will fully support the Freedom of 
Information Act. I will make information readily available, unless its 
release is precluded because of classification, by law, or other lawful 
reasons authorized by the act. If information is releasable and readily 
available, I will not create obstacles by requiring that a formal FOIA 
request be submitted. When tasked to provide records in response to a 
FOIA request, I will make every effort to comply within the time period 
established by the act and make available all responsive documents 
under my jurisdiction.
    Question. If confirmed, what responsibilities would you have under 
the Privacy Act and how would you fulfill those responsibilities?
    Answer. It is important to do everything we can to respect and 
protect the privacy of individuals. It is, therefore, critical that 
Department of Defense personnel who are charged with communicating with 
the public or the news media understand the restrictions that the 
Privacy Act or other law, such as FOIA, impose on the release of 
information about an individual. If confirmed, it will be my 
responsibility to balance the need to be responsive to the public's 
desire for information with the need to prevent any invasion of privacy 
that may result from the disclosure of information. I intend to fulfill 
this responsibility by continuing to ensure that the Department's 
public affairs personnel are adequately and properly trained and 
understand their obligations under current law. My goal is to sensitize 
personnel to the importance of avoiding unwarranted invasions of 
privacy that can result from information disclosures.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of Defense for Public Affairs?
    Answer. The major challenge confronting the Department as a whole 
is to build a military that reflects the threats of the 21st century. 
The extraordinary degree of change that will be necessary to succeed 
demands, in turn, the full engagement and support of the American 
people.
    That challenge is complicated by several factors. On the one hand, 
as a frank practical matter, the sheer proliferation of news outlets 
combined with the instantaneous and constant news cycle demand daunting 
effort just to keep up. On the other hand, the level of interest in 
military matters should be viewed as a potential opportunity. Fewer and 
fewer Americans have much, if any, contact with men and women in 
uniform. Not knowing can too easily evolve into not caring. Especially 
today, with threats to national security both grave and new, it is 
absolutely critical that Americans know both the threats we face and 
the heroic sacrifices our troops are making to meet them.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. Given the scope of change and challenge facing DOD, we must 
wage a full-scale communications campaign aimed at engaging the 
American people in a conversation on and commitment to a military built 
for the 21st century. We must educate Americans about what the military 
faces and the change we need. That means reaching out to every sector 
of society.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Public Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
               Question Submitted by Senator Jim Bunning
    Senator Bunning. The Department of Defense uses an individual's 
Social Security number as their service identification number. 
Recently, there have been some reports of identity theft from active 
duty military members. Privacy Act requirements notwithstanding, 
anecdotal evidence suggests that it is actually fairly easy to get the 
Social Security numbers of active duty military personnel, easier than 
for most civilians
    What is your plan to stop the use of Social Security numbers as 
military identification numbers?
    Ms. Clarke.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                                 ______
                                 

    [The nomination reference of Victoria Clarke follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 5, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Victoria Clarke of Maryland, to be Assistant Secretary of Defense, 
vice Kenneth H. Bacon, resigned.
                                 ______
                                 
    [The biographical sketch of Victoria Clarke, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Victoria Clarke
                            current position
    Victoria Clarke is the General Manager of the Washington, DC office 
of Hill and Knowlton. She is responsible for the oversight of all 
Washington practice area operations. (November, 1999-present).
                             prior history
    Prior to joining Hill and Knowlton, Ms. Clarke was the President of 
Bozell Eskew Advertising, an issues and advocacy advertising firm that 
is a division of BSMG Worldwide, Inc. The firm produced advertising for 
PhRMA, Microsoft, the National Cable Television Association, the Steel 
Industry and others. (December 1998-November 1999).
    Previously, Ms. Clarke served for 6 years with the National Cable 
Television Association (NCTA), leaving with the position of Vice 
President for Public Affairs and Strategic Counsel.
    Ms. Clarke has an extensive history in public policy. Starting as a 
press assistant in Vice President Bush's office in 1982, she continued 
on to the position of press secretary to Senator John McCain (R-AZ), 
working in both his House and Senate offices. Following that Ms. Clarke 
was the assistant U.S. Trade Representative for Public Affairs and 
Private Sector Liaison under Ambassador Carla Hills and in 1992 she was 
the Press Secretary for President George Bush's re-election campaign.
                           other information
    Ms. Clarke serves on the Board of Directors for the District of 
Columbia Special Olympics and the National Foreign Trade Council. In 
addition, she serves on the Board of Trustees for the Washington 
Educational Television Association (WETA). 
    She is married and has three children.
                                 ______
                                 

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Victoria 
Clarke in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Victoria Clarke.

    2. Position to which nominated:
    Assistant Secretary of Defense for Public Affairs.

    3. Date of nomination:
    April 5, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 18, 1959; Pittsburgh, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to James Brian Graham.

    7. Names and ages of children:
    Colin Charles Graham, 5; Devon Grady Graham, 4; Charles William 
Graham, 2.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Washington University (9/79-6/82).
    Received B.A. in Journalism (6/82).
    North Carolina State University (9/77-5/79).
    Sewickley Academy (9/75-6/77).
    Received high school diploma (6/77).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    11/99--present: General Manager of Hill & Knowlton (Washington, 
DC).
    12/98-11/99: President of Bozell/Eskew Advertising (Washington, 
DC).
    9/93-11/98: Vice President for Public Affairs at the National Cable 
TV Assoc. (Washington, DC).
    4/93-9/93: Consultant for Edelman Public Relations (Washington, 
DC).
    12/92-4/93: Self-employed consultant (Washington, DC).
    1/92-11/92: Press Secretary for Bush-Quayle 1992 (Washington, DC).
    11/89-1/92: Assistant U.S. Trade Representative for Public Affairs 
and Private Sector Liaison.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1999: Conducted a review of recruiting advertising for the 
Department of Defense.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    General Manager and member of U.S. Management Committee for Hill & 
Knowlton.
    Member of Board of Trustees for WETA (Public Broadcasting).
    Member of Board of Directors for DC Special Olympics.
    Member of Board of the National Foreign Trade Council.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    1996: I provided media relations support for 2 weeks for the Dole-
Kemp campaign. I used vacation time from my job (then: NCTA) and was 
not paid for the work.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Retained in committee files.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    1996--Named Woman of the Year by the Women in Cable & 
Telecommunications Assoc.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Victoria Clarke.
    This 1st day of March, 2001.

    [The nomination of Victoria Clarke was reported to the 
Senate by Senator John Warner on May 1, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 17, 2001.]


NOMINATIONS OF EDWARD C. ALDRIDGE TO BE UNDER SECRETARY OF DEFENSE FOR 
ACQUISITION AND TECHNOLOGY; WILLIAM J. HAYNES II TO BE GENERAL COUNSEL 
   OF THE DEPARTMENT OF DEFENSE; AND POWELL A. MOORE TO BE ASSISTANT 
              SECRETARY OF DEFENSE FOR LEGISLATIVE AFFAIRS

                              ----------                              


                        THURSDAY, APRIL 26, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Bunning, Levin, 
Cleland, and Dayton.
    Other Senators present: Senator Thompson.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Scott W. 
Stucky, general counsel; and Ann M. Mittermeyer, assistant 
counsel.
    Professional staff members present: Charles S. Abell, John 
R. Barnes, William C. Greenwalt, Gary M. Hall, Carolyn M. 
Hanna, George W. Lauffer, Patricia L. Lewis, Thomas L. 
MacKenzie, Cord A. Sterling, and Eric H. Thoemmes.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Madelyn R. Creedon, minority 
counsel; and Gerald J. Leeling, minority counsel.
    Professional staff members present: Daniel J. Cox, Jr., 
Creighton Greene, Michael J. McCord, and Terence P. Szuplat.
    Staff assistants present: Beth Ann Barozie, Shekinah Z. 
Hill, and Michele A. Traficante.
    Committee members' assistants present: J. Mark Powers, 
assistant to Senator Inhofe; George M. Bernier, III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders and Charles Cogar, assistants to 
Senator Allard; Kristine Fauser, assistant to Senator Collins; 
David Young, assistant to Senator Bunning; Christina Evans and 
Barry Gene (B.G.) Wright, assistants to Senator Byrd; Andrew 
Vanlandingham, assistant to Senator Cleland; and Eric Pierce, 
assistant to Senator Ben Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee 
meets today to receive testimony concerning three civilian 
nominees for the Department of Defense: Edward C. Aldridge, 
nominated to be Under Secretary of Defense for Acquisition and 
Technology; William J. Haynes II to be General Counsel of the 
Department of Defense; and Powell A. Moore to be Assistant 
Secretary of Defense for Legislative Affairs. We welcome you.
    Mr. Aldridge, I understand that your wife Jodie, your 
daughter and her husband, Laura and Jeff Boyd, and friend Gale 
Henderson are here. Would you introduce them, please?
    Mr. Aldridge. Yes, sir, they are sitting to my right.
    Chairman Warner. All present and accounted for. You did 
bring reinforcements, didn't you?
    Mr. Haynes, I understand your wife and daughter Sarah and 
sons Will and Taylor are with you today. Would you kindly 
introduce them?
    Mr. Haynes. Yes, sir. They are right behind me.
    Chairman Warner. All present and accounted for.
    Mr. Moore, I understand that your son, Allen, and Pam 
Brookenauer are with you today. We welcome you.
    This is a very important event, to which families are 
always welcome. The committee is pleased when they attend, 
because each of you are undertaking responsibilities in a 
Department which knows no hours, and knows no time when they 
can go home, and therefore the families in every respect are a 
very active participant in these challenging positions to which 
you have been nominated, so we welcome you. As you are all 
aware, the families support the individuals in these senior 
positions in our Government, and we appreciate the support that 
they will contribute.
    Mr. Aldridge has had a distinguished career, and served in 
a variety of positions in the Department of Defense and private 
industry for over 30 years.
    Mr. Haynes has been active in public service and private 
sector endeavors. President George Bush, Sr. appointed Mr. 
Haynes as General Counsel of the Department of the Army in 
1990, a position he served in for 3 years. He is currently a 
partner in the Washington Office of Jenner & Block, where he 
represents corporate and individual clients. In the mid-1990s, 
Mr. Haynes served as Staff Vice President and Associate General 
Counsel for General Dynamics Corporation. He served on advisory 
committees of the American Bar Association and Maryville 
College in Tennessee, and on a National Academy of Sciences 
Naval Studies Board. Mr. Haynes has also worked for a relief 
organization and performed pro bono work in the D.C. court 
system.
    Mr. Moore is currently the Chief of Staff of our 
distinguished colleague, Senator Fred Thompson. He has served 
in that position since 1998. He has been active in public 
policy affairs in Washington for more than 30 years, serving as 
Assistant Secretary of State for Intergovernmental Legislative 
Affairs under President Reagan, and on the White House staff 
under Presidents Nixon, Ford, and Reagan.
    Mr. Moore began his Washington career in 1966 as Press 
Secretary to Senator Richard B. Russell of Georgia, the 
chairman of this committee, and then he moved on, first serving 
as Deputy Director of Public Information for the Department of 
Justice, and later as a member of the White House legislative 
staff. He returned to Government service for the Reagan 
administration, serving as Deputy Assistant to the President 
for Legislative Affairs. He has worked on numerous presidential 
campaigns, and represented business interests as Vice President 
for Legislative Affairs for Lockheed Corporation, and as a 
consultant.
    Our nominees today have a wealth of experience which they 
bring to the Department of Defense, and as taxpayers and 
citizens of this country, we are grateful to each of you and 
your families for offering additional service.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, let me join you in welcoming 
our nominees, Mr. Aldridge, Mr. Haynes, and Mr. Moore. I want 
to extend a warm welcome to them and congratulate them on their 
nominations. I look forward to their service. All three 
nominees come to us with a strong background of public service.
    Mr. Aldridge has previously served as Secretary of the Air 
Force; Mr. Haynes has served as General Counsel of the Army; 
and Mr. Moore served as Assistant Secretary of State for 
Intergovernmental Affairs and Legislative Affairs, and in 
senior staff positions here in the Senate, including, as was 
indicated, as Senator Thompson's Chief of Staff.
    We know our nominees from many capacities and we welcome 
them all. We thank you for your dedication to public service. 
We thank your families in advance for the sacrifice they are 
going to be making as a result of the long hours and hard work 
that your new jobs are going to entail.
    Mr. Aldridge, if confirmed as Under Secretary of Defense 
for Acquisition and Technology, you are going to take on some 
of the most challenging issues in the Department of Defense, 
including the effective management of the Department's major 
weapons programs, the revitalization of defense science and 
technology, the continuation of acquisition reform and 
logistics modernization, and the even-handed management of 
public-private competition. This job is a very difficult and 
challenging one. It is one that many of us on this committee, 
indeed, even not on this committee, such as Chairman Thompson 
on the Senate Governmental Affairs Committee, have spent a lot 
of time trying to bring some common-sense practices to and to 
bring greater efficiency to.
    Mr. Haynes and Mr. Moore, if confirmed, you are both going 
to be serving in important positions of public trust. This 
committee relies on the Assistant Secretary for Legislative 
Affairs to provide us complete and timely information on the 
Department's planned activities. What is less known is that we 
also rely heavily upon the General Counsel to ensure that the 
laws we write are fully and faithfully executed and to make 
sure that the military justice system works well.
    Again, I want to thank your families. I notice, Mr. Haynes, 
that you have three children with you today.
    Mr. Haynes. Yes, sir.
    Senator Levin. At least you were able to get the tie on one 
of your boys.
    Mr. Haynes. It is a struggle. [Laughter.]
    Senator Levin. My heart goes out to him. [Laughter.]
    I want to commend your younger boy for his courage and 
tenacity. I'm probably going to get in trouble with his parents 
for saying this, but I am with him. [Laughter.]
    That probably is going to make it more difficult to ever 
get a tie on him in the future, but at any rate, we are 
delighted that you and your family are here. That is true with 
all of the families as well.
    Chairman Warner. I suggest we recognize our colleague, 
Senator Thompson. We are delighted to have you here.

  STATEMENT OF HON. FRED THOMPSON, U.S. SENATOR FROM TENNESSEE

    Senator Thompson. Thank you very much, Senator Levin. I 
want to thank you and Chairman Warner for letting me appear 
before you here today. I appear before you with very mixed 
emotions that I will probably soon be losing my Chief of Staff, 
Powell Moore. I told Powell that I would support him here 
today, but I am reserving my right to place a hold on his 
nomination later. [Laughter.]
    As I said when President Bush nominated him, my loss is 
certainly the country's gain. His nomination to be Assistant 
Secretary of Defense for Legislative Affairs will be just the 
latest chapter in a distinguished career of public service that 
began nearly 35 years ago. Powell was born in Georgia, though 
he has grown into a fine Tennessean, attended the University of 
Georgia, and served for 3\1/2\ years in the United States Army.
    Now, Powell majored in journalism and even served as a 
weekly newspaper editor before coming to Washington. He began 
his service as Press Secretary for Senator Richard Russell, as 
the Chairman pointed out. He then joined the Nixon 
administration, serving as Deputy Director of Public 
Information for the Justice Department, and later as a member 
of the White House legislative affairs staff. He left the White 
House in 1975, but returned 6 years later to serve as Deputy 
Assistant for Legislative Affairs to President Reagan, a role 
in which he managed the Senate component of legislative affairs 
at the White House.
    In January 1982, President Reagan nominated him to be 
Assistant Secretary of State for Intergovernmental and 
Legislative Affairs, and in this role he traveled with 
congressional delegations to more than 35 countries, and 
participated in meetings between congressional leaders and 19 
heads of state.
    Powell eventually entered the private sector, and answered 
the call of public service again in 1998, when I asked him to 
serve as my Chief of Staff. I had come to know Powell back in 
1973, during the Watergate days, when I was counsel to the 
Watergate Committee and Senator Baker. He was friends with 
Senator Baker, and Senator Baker's staff, and I got to know him 
then. Powell has been a friend ever since that time, so when I 
was in need, I felt that his experience and counsel would be a 
tremendous asset to me, and I was certainly right in that 
regard. I will miss his wisdom and his leadership and his 
counsel, as will my staff, some of whom are here today.
    I would like to say I was surprised when I learned that 
Powell was being called back into the executive branch, but I 
was not. I knew that President Bush wanted to assemble the 
strongest team possible, and it was obvious that there would be 
a place on that team for Powell Moore, so I am proud to 
introduce him here today.
    I want to also welcome a second Tennessean here today, 
William J. Haynes, who we also claim, who is up for position of 
General Counsel in the Department of Defense. His parents are 
Tennesseans.
    So most of your panel here today, Mr. Chairman, have strong 
Tennessee connections, and I want to thank you for your 
consideration to me and for your consideration for Powell 
Moore, who I think is and has been for many years a very strong 
public servant. I think the country is fortunate, with what we 
put people through nowadays across the board, and we are 
looking at the presidential appointment initiative, because it 
is taking longer and longer to qualify good people for service.
    It took President Clinton, I believe, about 8 months to get 
his cabinet together. This will probably take a year. It is 
therefore becoming more and more difficult to get good people 
to even come forward for public service, and the kind of people 
you have at this table here today I think attest to the fact 
that we are still getting good people who are willing to give a 
part of their time to serve their country, and I am delighted 
to see that, and I appreciate what this committee is doing in 
that regard.
    Thank you very much.
    Senator Levin. Senator Thompson, thank you, and also thank 
you for your leadership in trying to see if we cannot 
streamline this process somewhat. I just left the Secretary of 
Defense earlier this morning. He was going through what it is 
like to be waiting over in the Pentagon for his assistants to 
come on board. You are taking a leadership role in seeing if we 
cannot reverse this trend, because it is just simply untenable 
that we could operate a Government for up to a year with such 
skeleton crews as we are forcing on our Secretaries. Thank you 
for that.
    Chairman Warner, I am delighted to call on you.
    Chairman Warner. Thank you. I think it is a distinct 
privilege for me to come down and join this distinguished group 
of nominees and have the privilege of introducing an old friend 
and a man whom I have admired for many years. Pete Aldridge has 
been nominated to be Under Secretary of Defense for Acquisition 
and Technology. The position is one of the most important in 
the Department, and was established by Congress at the 
recommendation of the 1986 President's Blue Ribbon Commission 
on Defense Management, the Packard Commission, to place a 
senior official in charge of defense acquisition, to improve 
the effectiveness and efficiency of acquisition management.
    Earlier this morning, I had the opportunity to meet with 
former Secretary of Defense Melvin Laird. I had the privilege 
of serving with him and Dave Packard, and you wear the mantle 
of this position for a team, the Laird-Packard team, which I 
have always felt was second to none in the history of our 
Department. Secretary Laird wishes you the usual, get on with 
your business and do your job right. He was rather blunt. 
[Laughter.]
    Mr. Aldridge was Secretary of the Air Force at the time of 
the creation of the position of Under Secretary of Defense for 
Acquisition and Technology. He brings an historical perspective 
of the need for the position that he has been nominated for, as 
well as first-hand insight into the difficulties of exercising 
more centralized oversight and control over an acquisition 
process which is executed primarily by the services and the 
defense agencies.
    Mr. Aldridge is currently Chief Executive Officer of the 
Aerospace Corporation. He came to this position from McDonnell 
Douglas Electronic Systems Company, where he served as 
President from 1988 to 1992. He was confirmed as the 16th 
Secretary of the United States Air Force in June 1986, and led 
the Department until 1988.
    Mr. Aldridge has served in a variety of positions within 
the Department of Defense and private industry, in addition to 
those previously mentioned, for over 30 years, including 
positions as Advisor to the Strategic Arms Limitations Talks in 
Helsinki and in Vienna; as a Senior Manager with the LTV 
Aerospace Corporation; as the Senior Management Associate in 
the Office of Management and Budget; as a Deputy Assistant 
Secretary for Strategic Programs; Vice President of the 
National Policy and Strategic Systems Group for the Systems 
Planning Corporation; and as Under Secretary of the U.S. Air 
Force. He has a long and distinguished record of achievement, 
including numerous awards and honors, including the Secretary 
of Defense Meritorious Civilian Service Award, Distinguished 
Civilian Service Award, and Distinguished Public Service Award, 
among many others.
    Mr. Aldridge has an exceptional record of public service. 
He has the necessary experience and the background to tackle 
the difficult tasks that await him in this position. This is 
not an easy job, as every member of our committee recognizes. 
Every sailor, soldier, airman, and marine will depend upon him 
to ensure that the equipment placed in their hands is the best 
that it can be.
    Every taxpayer will depend upon him to ensure that this is 
all done at the least possible cost. I trust, and indeed I have 
confidence in him, to work hard to meet these objectives, so 
Mr. Aldridge, I wish you well. You are on your own. [Laughter.]
    Senator Levin. Chairman Warner suggested I proceed now to 
ask each of you if you have an opening statement. Mr. Aldridge.

STATEMENT OF EDWARD C. ALDRIDGE, NOMINEE TO BE UNDER SECRETARY 
           OF DEFENSE FOR ACQUISITION AND TECHNOLOGY

    Mr. Aldridge. Yes, sir. I have provided a little longer 
statement for the record, sir. I would like just to summarize 
that this morning.
    Chairman Warner, Senator Levin, members of the Armed 
Services Committee, it is indeed an honor and a privilege to 
appear before this committee once again. I am very grateful to 
the President and the Secretary of Defense for the confidence 
and trust they have shown in me by nominating me for this very 
important position and level of responsibility within the 
Department of Defense.
    Mr. Chairman, I very much appreciate your very kind 
introduction, especially the introduction of my wife, daughter, 
son-in-law, and executive assistant. They all provide 
significant support to my life and my career.
    If confirmed, this will be my fourth tour in the Pentagon, 
and the third time I have appeared before this committee in the 
nomination process. My first appearance was in 1981, when I was 
nominated by President Reagan to be the Under Secretary of the 
Air Force. The second appearance was in 1986, when I had been 
nominated to be the Secretary of the Air Force.
    After leaving the Secretary of the Air Force position in 
1988, I spent 3 years as President of McDonnell Douglas 
Electronic Systems Company, and for the last 9 years I have 
been President and Chief Executive Officer of the Aerospace 
Corporation. I believe my 23 years of experience in the 
aerospace industry and 17 years of experience in prior 
Government positions will be valuable in conducting the 
responsibilities of the office for which I have been nominated.
    Secretary Rumsfeld and Deputy Secretary Wolfowitz, during 
their confirmation hearings, outlined the national security 
goals of the President and five key objectives of the 
Department of Defense. I strongly support these goals and 
objectives, and if confirmed, will do everything in my power to 
assure that they are accomplished.
    I have established five goals for myself and the 
organization I will be honored to lead, if confirmed. These 
goals, if accomplished, will contribute directly to the goals 
and objectives of the President and Secretary of Defense.
    The first goal is to achieve credibility and efficiency in 
the acquisition and logistics support process. Too many cost 
overruns, schedule slippage, and performance failures have 
deteriorated our credibility and the effective management of 
sophisticated weapons systems. While improvements are being 
made, our logistics support system is not responsive for our 
warfighters, and is archaic with respect to commercial 
standards of parts supply and support. We need to attack cycle 
times, introduce stability in our programs, and apply good 
business practices to achieve efficiencies.
    The second goal is to revitalize the quality and morale of 
the acquisition workforce. The morale of our acquisition 
workforce in military and civilian is low. Some of our best 
people are leaving, and we cannot recruit good people as 
replacements in the numbers we need. The average age of the 
workforce is growing, and 50 percent of them will be eligible 
for retirement in the next 4 years. We need to let this 
workforce know how valuable they are, and how much they are 
appreciated. In 1990, Congress passed the Defense Acquisition 
Workforce Improvement Act, the purpose of which was to improve 
the quality and effectiveness of the DOD's acquisition process 
by enhancing the capabilities of the acquisition workforce. We 
need to ensure that we are fully utilizing the internal 
flexibilities provided by this act.
    The third goal is to improve the health of the defense 
industrial base. If we are to have the very best military 
forces in the world, we must have the very best industrial base 
which supply these forces, their training aids, and their spare 
parts. We want to encourage technology investment in the 
industry and enhance competition with stronger and more 
innovative companies, and encourage increased efficiency by 
removing excess capacity and implementing good business 
practices, and we must not forget our small and disadvantaged 
businesses in this process.
    The fourth goal is to rationalize the weapons systems and 
infrastructure with the new defense strategy. A revised defense 
strategy is being developed. When that work is complete, we 
will need to ensure working with the military departments and 
other elements of the Office of the Secretary that our science 
and technology programs, weapons systems, acquisition plans, 
logistics support systems, and basing structure support the 
revised defense strategy.
    The fifth and final goal is to initiate high-leverage 
technologies to create the weapons systems and strategies of 
the future. We must identify and initiate weapons system and 
information technologies to provide high leverage and major 
military advantage in conflict. Such new capabilities could 
also influence a change in strategy.
    To achieve these five goals, we require a responsive 
organization within the Department, with a decisive and active 
leadership. That starts with a Secretary of Defense who has 
already demonstrated these attributes. If confirmed, I will 
also attempt to reflect these attributes. In addition, I hope 
to be working more closely than ever before with the 
secretaries of military departments on acquisition and 
logistics support matters.
    If confirmed, it will be my intent to be actively involved 
with the committee members and staff to improve the process, 
quality, and efficiency of how we procure and support the 
weapons systems of our Armed Forces. Again, I want to thank the 
President and the Secretary of Defense for their confidence and 
trust that they have shown in me to be nominated for this 
distinguished and important position.
    Mr. Chairman, and members of the committee, I thank you for 
your time and attention, and I look forward to your questions.
    [The prepared statement of Mr. Aldridge follows:]
              Prepared Statement of E.C. ``Pete'' Aldridge
    Chairman Warner, Senator Levin, Members of the Armed Services 
Committee, it is indeed an honor and privilege to appear before this 
committee once again. I am very grateful to the President and the 
Secretary of Defense for the confidence and trust they have shown in me 
by nominating me for this very important position and level of 
responsibility within the Department of Defense. I had the honor of 
working directly for Don Rumsfeld during his first tour as Secretary of 
Defense and will be equally honored, if confirmed, to work with him 
again.
    If confirmed, this will be my fourth tour in the Pentagon, and the 
third time I have appeared before this committee in the nomination 
process. My first appearance was in 1981, when I had been nominated by 
President Reagan to be the Under Secretary of the Air Force. This 
committee voted favorably on my nomination and I was confirmed by the 
Senate in August 1981. At that time we were facing many of the same 
problems in the military that we see today. President Reagan, supported 
by the strong efforts of this committee, added significant funds to the 
Department for modernization, spare parts, improved maintenance, 
military pay, and new technologies. Those funds were well spent. We 
fought a major war 10 years ago with the superior forces and 
capabilities purchased during this buildup period, and 20 years later 
much of the legacy systems acquired during this period remain in our 
inventory today.
    As Under Secretary of the Air Force I had the dual honor of serving 
both as the deputy to the Secretary of the Air Force and as the 
Director of the National Reconnaissance Office, working for both the 
Secretary of Defense and the Director of Central Intelligence.
    In early 1986, when I appeared before this committee for the second 
time, I had been nominated to be the Secretary of the Air Force. This 
committee voted to confirm me once again. We had reached the peak in 
Defense funding in 1985 and began the decline in spending that has 
lasted until now. During my tour in this position, we rolled out the B-
2 stealth bomber, exposed the existence of the F-117, rebuilt the 
expendable space launch vehicle industry, and started the Advanced 
Tactical Fighter, which is now the F-22. With an exchange of visits 
between the military leaders of the Soviet Union and United States, we 
began to see the ``cracks'' form in the structure of the Soviet Union.
    After leaving the Secretary of the Air Force position in 1988, I 
spent 3 years as President of the McDonnell Douglas Electronic Systems 
Company, developing electronic systems for aircraft, helicopter, 
spacecraft and command and control systems. For the last 9 years I have 
been President and Chief Executive Officer of The Aerospace 
Corporation, a non-profit corporation supporting the Nation's military 
and civilian space program.
    I believe my experience in the aerospace industry and in prior 
government positions will be valuable in conduct of the 
responsibilities of the office for which I have been nominated.
    Secretary Rumsfeld and Deputy Secretary Wolfowitz, during their 
confirmation hearings, outlined the National security goals of the 
President and the five key objectives of the Department of Defense. I 
strongly support these goals and objectives and, if confirmed, will do 
everything in my power to assure that they are accomplished.
    I have established five goals for myself and the organization I 
will be honored to lead, if confirmed. These goals, if accomplished, 
will contribute directly to the goals and objectives of the President 
and Secretary of Defense.
    The first goal is to Achieve Credibility and Efficiency in the 
Acquisition and Logistics Support Process. Too many cost overruns, 
schedule slippage, and performance failures have deteriorated our 
credibility in the effective management of sophisticated weapon 
systems. While improvements are being made, our logistics support 
system is not responsive enough for our warfighters, and is archaic 
with respect to commercial standards of parts supply and support. We 
need to attack cycle times, introduce stability in our programs, and 
apply good business practices to achieve efficiencies. We must look at: 
(a) streamlining the internal decision processes on weapons 
acquisition, (b) establishing realistic pricing, spiral development and 
cost-as-an-independent variable (CAIV) as mandatory features of every 
program acquisition, (c) expanding multi-year contracting for 
procurement and development, (d) introducing electronic business 
systems throughout the acquisition and logistics community, (e) 
privatizing non-core support functions, (f) achieving excellence in the 
acquisition of services, and (g) moving to more performance-based 
contracts for both services and supplies.
    As Deputy Secretary Wolfowitz stated in his confirmation hearing 
``We need to seek greater efficiencies not only to safeguard the 
taxpayer's money, but also because that will allow us to create better 
weapons systems and invest more in the cutting edge of our Nation's 
defenses.'' We need to work closely with Congress to make this happen.
    The second goal is to Revitalize the Quality and Morale of the 
Acquisition Workforce. The morale of our acquisition workforce, 
military and civilian, is low; some of our best people are leaving and 
we cannot recruit good people as replacements in the numbers we need. 
The average age of the workforce is growing and 50 percent of them will 
be eligible for retirement in the next 4 years. We need to let this 
workforce know how valuable they are and how much they are appreciated. 
Rigorous civilian human capital planning for the future is essential as 
we face more demanding skill requirements for future, high technology 
weapon systems. Congress authorized the Secretary of Defense to provide 
direct hiring authority to the Defense Laboratory Directors, to allow 
them to compete better with the private sector for scientific talent. 
This addresses one part of the problem, but we should be searching for 
additional solutions to improve the quality and morale of the entire 
acquisition workforce. In 1990, Congress passed the Defense Acquisition 
Workforce Improvement Act (DAWIA), the purpose of which was to improve 
the quality and effectiveness of DOD's acquisition process by enhancing 
the capabilities of the acquisition workforce. We need to ensure that 
we are fully utilizing the internal flexibilities provided by this act 
as well as making maximum use of our education and training 
capabilities, to include continuous learning for the acquisition 
workforce.
    The third goal is to Improve the Health of the Defense Industrial 
Base. If we are to have the best military forces in the world, we must 
have the very best industrial base which supply these forces, their 
training aids and their spare parts. We want to encourage technology 
investment in the industry, enhance competition with stronger and more 
innovative companies, and encourage increased efficiency by removing 
excess capacity and implementing good business practices. In response 
to many studies on this issue we can do a lot to help the defense 
industry improve their business viability, to the advantage of industry 
and to the advantage of the Department of Defense. A stronger, more 
viable industry encourages technology investment and is more attractive 
for recruiting and retention of good people. We need to address cash 
flow and profit policies, barriers to commercial companies doing 
business with the Department, expedited and proper export control 
processes, and more incentives for companies to reduce unnecessary 
costs. We also need to address the development and quality of our small 
and disadvantaged business contractors, another key part of our overall 
industrial base.
    The fourth goal is to Rationalize the Weapon Systems and 
Infrastructure With the New Defense Strategy. A revised Defense 
Strategy is being developed. When that work is complete, we will need 
to ensure, working with the Military Departments and other elements of 
the Office of the Secretary, that our science and technology programs, 
weapons systems and acquisition plans, logistics support systems and 
basing structure support the revised Defense strategy. We will review 
all the acquisition programs to ensure consistency with the strategy--
recommending for elimination those that are not consistent and 
recommending those on-going and new programs that should be funded. For 
those programs that are to be included in the Defense budget, we must 
ensure that the acquisition strategies and plans are consistent with 
the needs of the warfighters. The final step in this goal will be to 
adapt the Defense infrastructure to support the strategy and the 
resulting force structure.
    The fifth, and final, goal is to Initiate High Leverage 
Technologies to Create the Weapon Systems and Strategies of the Future. 
We must identify and initiate weapon system and information 
technologies to provide high leverage and major military advantage in 
conflict. Such new capabilities could also influence a change in 
strategy. We will be looking at rebalancing the activities of the 
Defense Advanced Research Projects Agency (DARPA) toward high leverage, 
higher risk technologies, increasing the number of Advance Concept 
Technology Demonstrations (ACTDs) and taking advantage of commercial 
innovations, especially in information technology. An increase in 
Science and Technology funding across the Military Departments and DOD 
agencies will stimulate more innovative thinking on ``war winning'' 
technologies and concepts.
    To achieve these five goals will require a responsive organization 
within the Department with decisive and active leadership. That starts 
with the Secretary of Defense, who has already demonstrated these 
attributes. If confirmed, I will also attempt to reflect these 
attributes. In addition, I hope to be working more closely than ever 
before with the Secretaries of the Military Departments on acquisition 
and logistic support matters.
    Many of the actions I have outlined we can do with authorities 
already existing within the Department, and, if confirmed, I will work 
toward these as expeditiously as possible. Other initiatives will 
require statutory and regulatory changes to remove the barriers to good 
and efficient acquisition and logistics support management. If 
confirmed, I will need the help of this committee and others in 
Congress to remove these barriers and to achieve the goals we have 
established for ourselves. It will be my intent to be actively involved 
with the committee members and staff to improve the process, quality 
and efficiency of how we procure and support the weapon systems of our 
Armed Forces.
    Again, I want to thank the President and the Secretary of Defense 
for their confidence and trust they have shown in me to be nominated 
for this distinguished and important position.
    Mr. Chairman and members of the committee, I thank you for your 
time and attention. I look forward to your questions.

    Chairman Warner. Thank you very much, Mr. Aldridge. That 
was an excellent opening statement.
    Mr. Moore.

STATEMENT OF POWELL A. MOORE, NOMINEE TO BE ASSISTANT SECRETARY 
               OF DEFENSE FOR LEGISLATIVE AFFAIRS

    Mr. Moore. Mr. Chairman, I have no opening statement, but I 
would like to offer a few expressions of appreciation, if I 
may.
    First and foremost, I would like to thank you and Senator 
Levin for your prompt consideration of these nominations. The 
fact that these nominations arrived here on Monday after a 
recess and then you were having this hearing today certainly 
indicates an intention on the part, and a record on the part of 
this committee to cooperate with this administration. I 
certainly would offer my expressions of appreciation for that 
spirit of cooperation.
    As Senator Thompson pointed out, about 34\1/2\ years almost 
to the day, I started work for the chairman of this committee, 
and I learned very early about its bipartisan spirit and its 
bipartisan approach to public policy, and I know that that 
bipartisan spirit has existed for a long time.
    Let me say that if I am confirmed to be the Assistant 
Secretary for Legislative Affairs, it would be my intention to 
make sure that the Department of Defense fosters that spirit of 
bipartisanship that has always characterized this committee.
    Second, I would like to offer my appreciation to the 
President for nominating me to this position. I would like to 
thank the Secretary of Defense for recommending me for this 
position. I think the President has demonstrated that he 
intends to assemble the best, or he has assembled the best 
possible cabinet available, especially when he selected 
Secretary Rumsfeld to be his Secretary of Defense. I think 
Secretary Rumsfeld has the qualities, the character, the 
integrity, and the judgment to truly make a historic member of 
the presidential cabinet.
    Finally, I would like to thank Senator Fred Thompson not 
just for his kind comments today, but also for the opportunity 
that he provided me 3 years ago to return to public service. I 
think the experience as his Chief of Staff has certainly been a 
wonderful experience for me and a truly beneficial experience 
for me, and I would like to suggest that I know of no one who 
sacrifices more in the cause of public service than Senator 
Fred Thompson does. He has a lot of options, in view of his 
exceptional capabilities and qualities, for a more lucrative 
existence, and an easier existence, but he chooses public 
service, and I think the Nation benefits from the fact that he 
chooses public service, and I offer my appreciation to him.
    I look forward, if confirmed, to working with this 
committee and you, Mr. Chairman, and you, Senator Levin, and I 
am prepared to answer your questions.
    Chairman Warner. Thank you again. That was a very moving 
statement, and we recognize your long service to your country, 
and indeed to this institution, the United States Senate, and 
the taxpayers are fortunate, as is this country, to have you 
once again volunteer to go back into the harness. We wish you 
well.
    Now, Mr. Haynes, I observe that both you and Mr. Aldridge 
are returning to the Department. I do not want to get personal 
about it, but I love that Department. I spent 5 years plus at 
it, and there have been times in my career that my heart is 
tugged to go back, so I thank you for taking this opportunity 
to go back. I know the challenges in that Department are second 
to none anywhere in our whole Federal system, so I wish you 
well, both of you. Please proceed, Mr. Haynes, for any 
statement that you might wish to make.

   STATEMENT OF WILLIAM J. HAYNES II, NOMINEE TO BE GENERAL 
              COUNSEL OF THE DEPARTMENT OF DEFENSE

    Mr. Haynes. Thank you, Mr. Chairman, Senator Levin. I also 
want to thank Senator Thompson for his kind words.
    Senators, it is an honor to be back before this committee 
today to be considered to be the next General Counsel of the 
Department of Defense. If confirmed, I look forward to working 
with you and your staffs on behalf of our country, and for our 
men and women in uniform. I am deeply grateful to President 
Bush for nominating me for this office, and to Secretary 
Rumsfeld for this opportunity to join his team.
    As I said to Secretary Rumsfeld in one of our discussions 
about the privilege of service, my family is the most important 
motivation and foundation for me in going forward. I am happy 
that most of them are here today. Not here are my parents, 
retired Colonel Jim Haynes, and Caroline Haynes, Tennesseans 
now and South Carolinians always, who continue to be sources of 
inspiration and example for me.
    With me today are my children, of whom I am very proud. 
They represent for me the next generation whose security and 
freedom we all hope to ensure. Indeed, they may be the ones who 
have to fight if we are less than perfectly successful in 
meeting our challenges. Meg, my wife of 19 years and partner 
for a lifetime, is my most important source of sustenance and 
focus for commitment. I thank them for their support in this 
opportunity to serve.
    Finally, I thank this committee and staff for your 
significant efforts to schedule this hearing so quickly. We are 
all eager to get started, if confirmed.
    Chairman Warner. Thank you very much. Senator Levin and 
members of the committee, I am just sitting here thinking, 
Secretary Rumsfeld, previous Secretary of Defense; Secretary 
Wolfowitz served in the Department of Defense; Dov Zakheim 
served in the Department of Defense; now two more. I do not 
think there is any other Department or agency in our Federal 
Government that has a record that reflects the challenges of 
work there to which you and others have responded time and time 
again. It is very unique.
    We thank you for your expressions of confidence in this 
committee and its work as a separate coequal branch of the 
Government, the Senate has the advice and consent role, and we 
have, Senator Levin and I and each member of this committee, 
tried very hard to move as swiftly as we can, but carefully and 
thoroughly with regard to the nominations that our President 
has forwarded to the Senate. We have conducted open sessions, 
and we have conducted executive sessions on those matters which 
we regard as personal to each individual as nominee. We will 
have an executive session following this hearing today with 
respect to certain nominees, and so we have to move very 
swiftly.
    Now, at this point, I would like to enter into the record a 
statement provided by our former chairman, Senator Sam Nunn, 
recognizing your accomplishments, Mr. Moore, and the trust that 
he has in you to fulfill the obligation of the office to which 
you have been appointed. Following Senator Nunn's statement, I 
would also enter into the record the opening statement of 
Senator Strom Thurmond.
    [The prepared statement of former Senator Nunn follows:]
             Prepared Statement by Former Senator Sam Nunn
    Mr. Chairman, Senator Levin, and members of the Senate Armed 
Services Committee, it is a privilege to join my former colleague, 
Senator Fred Thompson, in strongly supporting the nomination of Powell 
Moore for the position of Assistant Secretary of Defense for 
Legislative Affairs.
    I know that Powell will fully justify the confidence that the 
President and Secretary of Defense have expressed in him. In Powell 
Moore, we have a member of our Senate Armed Services Committee family, 
as he started his government career with then-Chairman of the SASC, the 
late Senator Richard Russell of Georgia. The committee has been blessed 
over the years with truly remarkable staff, and Powell certainly was 
one of the best.
    My unhesitating support for Powell Moore is based on a major aspect 
of his distinguished career--the combination of a solid grasp of 
national security issues with remarkable experience and understanding 
in the area of executive-legislative relations.
    I know the Chairman, and other members believe, as I do, that it is 
extremely important that our overall national security and foreign 
policy be conducted within a bipartisan framework. This has been a 
hallmark of the SASC over the years and is continued by the current 
leaders, Chairman Warner and Senator Levin.
    Powell Moore recognizes and supports this tenet as he learned this 
firsthand from Senator Russell who himself considered bipartisan 
statesmanship as an inviolate principle.
    Powell worked closely with Senator Russell and learned this 
approach and the issues well. He cemented this understanding in 
subsequent jobs in the executive branch, in the legislative branch, and 
over a decade of highly successful years in the private sector.
    Mr. Chairman and members of the committee, Powell Moore understands 
the issues, he understands the need for a bipartisan approach, and he 
understands the ``two way street'' that is essential for the proper 
implementation and the long-term support and continuity of a sound 
national security policy. I am sure most people on this committee know 
Powell Moore personally and recognize firsthand his superb capabilities 
in this area.
    Powell's knowledge and skills were cultivated in his hometown of 
Milledgeville, Georgia and during his days at the University of 
Georgia. I have known Powell and his family for many years and know 
that he has the best interest of this nation as his guiding principle. 
His parents were close to another American who shared that goal, my 
great-uncle, Congressman Carl Vinson, also of Milledgeville, Georgia.
    Powell has a difficult and challenging job ahead as do members of 
this committee. Many complex national security issues will be before 
Congress that will take a great deal of skill, knowledge, 
understanding, and cooperation between the two branches.
    I am confident that Powell is more than qualified for this 
important task. I want to offer my personal congratulations to Powell, 
his family, and his very proud relatives in Milledgeville, Georgia.
    I thank the committee for this opportunity and I welcome the 
opportunity to support Powell Moore's nomination.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I join you in welcoming Mr. Aldridge, Mr. Haynes, and 
Mr. Moore. Our Nation is fortunate to have individuals such as these 
nominees willing to take on the challenges of serving in key positions 
and to undergo the scrutiny of the nomination process. Although some 
have criticized the nomination process as being too burdensome, I 
believe that the confirmation of Presidential appointees is one of the 
Senate's most important tasks and one that should not be taken lightly.
    Mr. Chairman, we have three able nominees before the committee this 
morning. Mr. Aldridge has a distinguished record both in government and 
the private sector. He has appeared before this committee often most 
notably as the Secretary of the Air Force in the Reagan administration. 
Mr. Haynes has served as the Army General Counsel and has extensive 
corporate legal experience. Mr. Moore is well known to all who have 
served in the Senate for his service to Senator Richard Russell and now 
Senator Thompson. He also has distinguished himself in various 
positions in the Department of State and the White House.
    Mr. Chairman, I look forward to hearing from the nominees and I 
wish them all success.
    Thank you, Mr. Chairman.

    Chairman Warner. The committee has asked each of our 
witnesses a series of advance policy questions, and they have 
responded to those questions. Without objection, I shall put 
them into the record at the appropriate location.
    Senator Levin and I, as Chairman and Ranking Member, have 
examined very carefully certain background material as 
forwarded by the Counsel for the President. In my judgment, 
each of the nominees has a record which brings no reason for 
any further consideration in terms of any question of their 
background. Do you share that view, Mr. Levin?
    Senator Levin. I do.
    Chairman Warner. We will be looking into one aspect in 
executive session, however, with respect to two of the 
nominees. Now, the standard questions that are posed by this 
committee to each of the nominees, you have heard them before, 
since you have been here, but we will go again. Have you 
adhered to the applicable laws and regulations governing 
conflict of interest?
    Mr. Moore. Yes, sir.
    Mr. Aldridge. Yes, sir.
    Mr. Haynes. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Haynes. No, sir.
    Mr. Aldridge. No, sir.
    Mr. Moore. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines for requested communications, including questions for 
the record?
    Mr. Haynes. Yes, sir.
    Mr. Aldridge. Yes, sir.
    Mr. Moore. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Moore. Yes, sir.
    Mr. Aldridge. Yes, sir.
    Mr. Haynes. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisals for their testimony or briefings?
    Mr. Moore. Yes, sir.
    Mr. Aldridge. Yes, sir.
    Mr. Haynes. Yes, sir.
    Chairman Warner. All right. We thank you very much. Senator 
Levin, why don't you lead off with your questions.
    Senator Levin. Thank you, Mr. Chairman.
    As the chairman mentioned, we have received a letter from 
Sam Nunn, which is a very strong letter of recommendation for 
you, Mr. Moore. I notice in his statement, which the chairman 
has made a part of the record, that you come from the same town 
as Senator Nunn's great uncle, Congressman Carl Vinson, 
Milledgeville--am I pronouncing it correctly?
    Mr. Moore. Yes, sir.
    Senator Levin. I am glad Senator Cleland is here, because 
of that connection. He is going to tell us later where 
Milledgeville is. [Laughter.]
    There must be something about Georgia which produces the 
kind of heroes we have seen, with your former boss, as a matter 
of fact, Senator Russell. We have a true hero here in our midst 
today in Senator Cleland, Senator Nunn, Congressman Vinson--
there must be something magic down in Georgia. I hope you will 
export it.
    Mr. Moore. They all come from small towns, Senator Levin.
    Senator Cleland. Would the Senator yield?
    Senator Levin. I would be happy to yield.
    Senator Cleland. I might say that with all due respect to 
the great Carl Vinson and the distinguished panelist here, Mr. 
Moore, Milledgeville is the site of a State insane asylum. 
[Laughter.]
    Senator Levin. There is no way to follow that one up 
without getting into trouble. I am just sorry that the chairman 
talked about throwing some light on this subject earlier today 
[Laughter.]
    Chairman Warner. Would you yield for a moment?
    Senator Levin. I would be happy to.
    Chairman Warner. Our colleague from Georgia is second to 
none, and he knows exactly when and how to use his humor, but I 
know the way to Milledgeville. When I was Secretary of the Navy 
we had a problem, a very serious one, and I received a summons 
to go to Milledgeville with the Chief of Naval Operations.
    There we received, I think, one of the historic lectures 
from a man who served in Congress for 50 years, and walked out 
of his congressional office exactly to the day, 50 years, 
having served first as chairman, I believe, of the Naval 
Affairs Committee, and then as the House Armed Services 
Committee for, I do not know how many years he was chairman of 
those two committees, but I always remember when I was in the 
Department of Defense Mr. Laird said there is one man that I 
will follow anywhere in this world, and it was Uncle Carl 
Vinson.
    Mr. Moore. I do not think people who knew him referred to 
him as Carl. Senator Nunn, of course, referred to him as Uncle 
Carl, but, of course, he was his uncle. The rest of us called 
him Mr. Vinson, or Mr. Chairman.
    Senator Levin. First, Mr. Moore, let me ask you this 
question. We have had a number of nominees in recent weeks tell 
us that they do not know when the administration is going to be 
submitting the details of the fiscal year 2002 defense budget. 
They cannot say whether or not the administration is going to 
be submitting a supplemental request for fiscal year 2001.
    We all want to work with the Department to strengthen our 
military, but we cannot begin our authorization process until 
the administration submits that detailed budget. I am wondering 
whether you will tell us, when confirmed, as soon as you can on 
a regular basis, as to what the plans of the administration are 
for submitting that 2002 budget and any 2001 supplemental.
    Mr. Moore. Senator Levin, I think that all nominees have 
been very cautious about making any assumptions about Senate 
confirmation, and I think that is entirely appropriate, so most 
of the people who have appeared before you as nominees have 
truly not been read into the exact plans for a supplemental. 
Let me say that if I am confirmed, that I will cooperate with 
you and the chairman and this committee to the maximum extent 
possible, including keeping you informed on progress and 
developments related to supplementals and any adjustments that 
may be made in the 2002 budget.
    Senator Levin. Thank you. I believe there have been 20 
separate advisory panels that are now participating in various 
aspects of Secretary Rumsfeld's strategic review. Will you, if 
confirmed, ensure that this committee is provided information 
regarding the structure, membership, purpose, and findings of 
those panels?
    Mr. Moore. If confirmed, yes, sir, I will make every effort 
to make sure that the committee is properly informed.
    Senator Levin. About those aspects?
    Mr. Moore. Yes, sir.
    Senator Levin. This is for you, Mr. Aldridge. Secretary 
Rumsfeld testified at his confirmation hearing that the cycle 
time for major acquisition programs conducted over the last few 
decades averages between 8 and 9 years. Others have said that 
that cycle can go from 15 to 20 years. The Secretary has said 
that the cycle time simply does not respond to urgent 
challenges arising, and to rapidly emerging technological 
developments. I think all of us would surely agree with that. I 
am wondering what your thoughts are on specific steps the 
Department might take to reduce that cycle time for major 
acquisition programs.
    Mr. Aldridge. Yes, sir. There have been many studies done 
on this particular problem, the Defense Science Board, various 
independent committees, and if confirmed, I will strongly work 
toward getting the cycle times down. Many of the previous 
studies have talked about a concept called spiral development, 
or evolutionary development. Rather than trying to go for the 
ultimate configuration right off the bat, it is better to 
accept a slightly lesser version or capability of a particular 
weapons system, and that can be done much faster and allow that 
weapons system to evolve with time.
    It reduces risk, it gets weapons systems in the hands of 
our troops faster, usually the systems are designed to be lower 
cost so you can get rid of the older system that would tend to 
be more expensive, so cycle times have a very positive impact. 
Reducing cycle times has very positive impacts upon the 
capabilities of our forces, and if confirmed, I plan to attack 
that aggressively. As I pointed out, one of my goals that I had 
in mind, if confirmed to this job, is to go after that for 
acquisition as well as logistics.
    Senator Levin. After you have had a chance to get settled 
and review the studies, would you give us a specific plan for 
reducing that acquisition cycle at some point this year? Would 
you do that?
    Mr. Aldridge. Yes, sir, if confirmed into the job, that is 
one of my goals and, in fact, we are developing some metrics to 
measure how well we are doing, and I can share that with the 
committee as well.
    Senator Levin. In addition to the metrics about how well 
you are doing, can you give us the specific steps as to how to 
achieve those goals that you are going to take after you have 
had a chance to do these reviews?
    Mr. Aldridge. Yes, sir, when and if I am confirmed.
    Senator Levin. Thank you.
    Secretary Rumsfeld indicated that the administration is 
going to seek to reduce cost by privatizing non-core defense 
activities. The Department has said in the past that it 
benefits from public-private competition regardless of whether 
the competition is won by the public sector or by the private 
sector. Others have made the point that it is unfair to take 
jobs from public employees without giving them an opportunity 
to compete for the work. Would you agree that private-public 
competition is an essential precondition to the privatization 
of noncore functions that are currently using DOD employees?
    Mr. Aldridge. Yes, sir.
    Senator Levin. One last question, and this goes to you, Mr. 
Haynes, and it relates to the needs of defense laboratories to 
have direct hiring authority in order that they can compete 
with industry for the best and brightest personnel. The 
committee has twice enacted legislation giving the Department 
this direct hiring authority, but the Department has yet to use 
it.
    I am wondering whether you will work with Mr. Aldridge and 
others, Mr. Haynes, to address any legal objections that there 
may be to using this authority so that we can give the 
laboratory directors the authority that they need.
    Mr. Haynes. Yes, Senator Levin. If confirmed, I will hope 
to be working very closely with Secretary Aldridge. It is one 
of my most intense hopes to provide the leadership of the 
Department with a range of authorities, and if the Department 
is not utilizing some authority that it can to accomplish 
objectives the President and the Secretary have laid out, then 
we absolutely should pursue that.
    Senator Levin. Will you take a specific look at that 
authority?
    Mr. Haynes. Yes, sir.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. Senator Bunning, why don't you go ahead. I 
have quite a bit to cover later.
    Senator Bunning. Thank you, Mr. Chairman. Thank you, 
gentlemen, for coming to see us. As I told the nominees that 
were before us, yesterday or the day before----
    Chairman Warner. Excuse me, by the way, I am glad you 
mentioned that. In consultation with the Ranking Member, we 
would hope to have a vote today of the committee on those 
nominees.
    Senator Levin. The ones that were before us on Wednesday?
    Chairman Warner. Yes. We will notify the committee.
    Senator Bunning. --I told them the same thing, that I would 
like to relate to you that the most important thing I can 
convey to you is the importance of providing us here in 
Congress with timely, accurate information. If we ask one of 
you a question, or if you are here to report on an issue within 
your purview, accuracy is vital, and I repeat that. Accuracy is 
vital.
    We have had people appear before committees of jurisdiction 
and not have accurate information so therefore we made bad 
judgments because of inaccurate information. Congress cannot do 
its job without good information. If you are confirmed, I am 
looking forward to working with you to see to it that we do get 
accurate information.
    I just have a few questions, Mr. Chairman. This is for Mr. 
Aldridge. If confirmed, will the Army's recent decision, at an 
estimated cost of approximately $26 million to purchase berets 
from China, fall within your jurisdiction?
    Mr. Aldridge. Yes, sir, and if confirmed, the process of 
that purchase went through the Defense Logistics Agency, and 
that is under the control of the Under Secretary for 
Acquisition and Technology.
    Senator Bunning. What is your view of the Army's decision 
to circumvent the Buy America requirement and go to China for 
the purchase?
    Mr. Aldridge. Sir, I was not involved with that decision at 
all.
    Senator Bunning. I know you were not.
    Mr. Aldridge. I am not sure what the rationale was for that 
decision. My understanding is the Army asked the Defense 
Logistics Agency to purchase the berets and they went through a 
process, which I understand from the discussions was 
appropriate. I have read that somewhere in the newspaper, but 
the decision as to exactly why they did that, I cannot answer 
why they took foreign sources.
    Senator Bunning. If confirmed, do you intend to do anything 
about it?
    Mr. Aldridge. It will fall within my purview, if confirmed, 
to address the issues, any remaining issues on that purchase, 
if I am confirmed for the office.
    Senator Bunning. Mr. Haynes, events such as the World Trade 
Center bombing and Oklahoma City bombing have highlighted the 
domestic terrorist threat to the United States. To respond to 
this threat, various agencies of the executive branch have been 
planning and conducting exercises to work out effective 
responses to terrorist incidents. An example of this is the 
topoff exercise that was conducted in three cities last May.
    One issue to be worked out involves the role the military 
is to play in the domestic support of law enforcement during 
such an incident. This support is allowed under special 
circumstances by the posse comitatus--that is good, you can 
tell I am not a lawyer, thank God--act and other similar laws. 
How do you plan to ensure that the military can provide 
effective support to law enforcement during a domestic 
terrorist attack while ensuring they don't violate the 
Constitution and the laws of the United States in the process?
    Mr. Haynes. Senator, the key to that question, I think, is 
planning and thought beforehand. One of those delicate issues 
in constitutional democracy is the relationship between the 
Armed Forces and the civilian leadership. The scenario you 
describe, as horrible as it is, presents that very delicate 
question perhaps in its most severe light, so careful planning 
beforehand to ensure that military support under such 
circumstances is always under civilian control is going to be 
paramount. I can assure you, if confirmed, that will be a very 
important issue for me, and the legal community should and 
absolutely must be involved in that planning process.
    Senator Bunning. One last question. A topic that has come 
up in recent years is information warfare: the ability to 
conduct an attack against someone's computer system. In recent 
years, the Department of Defense has been working on how these 
capabilities would apply under the international laws of armed 
conflict.
    The Department of Defense has since transferred the 
responsibility for information warfare, or, as it is sometimes 
called, information operations, to Space Command, an 
operational command. This has at least indicated the 
possibility of the capability to conduct such an operation. 
What is your view regarding how information operations fit into 
the law of armed conflict?
    Mr. Haynes. My view is a developing one, Senator, as is the 
entire field of information warfare. The concept is relatively 
new. It has ripened since the last time I was in public 
service, although I was involved in a panel with the Naval 
Studies Board in the early 1990s to address some of these 
issues.
    The short answer is that each circumstance will present 
novel issues and require very delicate and sophisticated 
analysis. It is something we are going to have to address in 
the future and, if confirmed, that is going to be one of the 
top priorities for all of us: to figure out how to incorporate 
that into the roles and missions of the Department of Defense, 
and where it is to be placed.
    Senator Bunning. Well, I intend, after you are confirmed, 
and I expect you to be confirmed, to follow up on that specific 
question again, because I think that is a vulnerable and most 
important part of your job.
    Mr. Haynes. I look forward to working with you and your 
staff.
    Senator Bunning. Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator, a very interesting 
line of questions. If my colleagues would bear with me a 
minute, that question of the Army berets, you know what 
disturbed me, and I communicated some certain thoughts to the 
Chief of Staff of the Army and others about that, but the issue 
of awarding that contract to China certainly is one that has to 
be examined. In hindsight, I would not say that the Chief of 
Staff of the Army or others who handled that could have 
foreseen in any way the problems that ensued thereafter between 
our country and China. I am happy to go into that with you, but 
I know that decision has to bear heavily on their thoughts and 
minds today.
    Senator Bunning. Mr. Chairman, I did not even think in 
relationship to the fact that we have had an incident with 
China, just the fact that there would be a contract awarded to 
China in the situation that we have a Buy American clause in 
all procurement, if we can Buy American first.
    Chairman Warner. I share the Senator's views, because that 
hat is a symbol of great military tradition. Anyway, I just 
wanted to say I have great respect for the Chief of Staff of 
the Army, and while we may have differences on the policy 
decisions, I certainly think he should not bear that one.
    Now we will turn to our distinguished colleague, Mr. 
Dayton. I am going to do the wrap-up and let all the other 
members have their opportunity first.
    Senator Dayton. Thank you, Mr. Chairman, and I thank the 
nominees for their willingness to serve our country once again, 
and since you have provided excellent responses to the prepared 
questions and previous questions, I will not belabor those 
subjects. I just have a couple of questions.
    Mr. Aldridge, you bring a unique perspective, having served 
as the head of one of the service branches and also previously 
in the Department of Defense itself, and now with the position 
you are coming into. I wonder if you could from both those 
perspectives assess the benefits and the weaknesses of having 
essentially very separate weapons development procurement 
systems within the respective branches.
    Do you see any opportunities or benefits from increased 
coordination or consolidation of those, or do you think they 
are best kept separate?
    Mr. Aldridge. Sir, the Goldwater-Nichols Act changed the 
approach that the Department of Defense had with regard to 
weapons systems acquisition. It dictated that there would be a 
more centralized approach to weapons acquisition than in prior 
years. It established the Under Secretary for, at that time, 
Acquisition and Technology, which has now been designated 
Acquisition, Technology, and Logistics.
    The approach that the Secretary has in his new position 
with the current Secretary of Defense is to encourage much 
closer cooperation between the acquisition and logistics 
community within the Department of Defense, with the services, 
and has formulated an approach that I would hope to follow 
through on, if confirmed, to work very closely with the service 
secretaries in this regard. He has clearly indicated that that 
is what he expects of this position, and I certainly support 
his views on that regard, and if confirmed, I would carry them 
out.
    Senator Dayton. A related question, sir, one of the 
questions about the lack of financial and physical inventory 
controls and accounting capabilities, you referenced the 
difficulty with the so-called feeder systems coming up. 
Obviously, the consolidated information is only as good as the 
individual components.
    Do you see that as a bottom-up kind of problem, though, and 
is there any kind of--again, given the separation and a system 
as complicated and mammoth as the institutions and the 
branches, is there any hope that we will ever get to a point 
where we have a uniform system and better accounting, better 
management, and fiscal controls?
    Mr. Aldridge. Sir, I think it is essential that we have 
such capabilities, and it is a two-way street. It is a bottoms-
up, which is to make sure the feeder systems are consistent and 
providing consistent information as it moves up the chain, but 
I will tell you, I think it is also a leadership question. This 
type of modification to our finance and accounting system is 
going to take very strong top leadership to get it, to make it 
happen.
    It is clear that some kind of directive to achieve such a 
capability within a finite period of time, and having that 
monitored by the Secretary of Defense and the other DOD 
leadership, is going to be absolutely essential.
    Senator Dayton. Well, reading through the questions and 
getting an understanding of the scope of your responsibilities, 
I wish you well. You have a mammoth task in front of you.
    Mr. Moore, one question. I would second Senator Bunning's 
concerns that at our previous hearing this week with then the 
nominee for Assistant Secretary of Public Affairs, Victoria 
Clarke, about the accuracy and reliability and the speed of 
information provided to Members of Congress, do you see a role 
for your office in that effort and, if so, how would you work 
with the Secretary for Public Affairs?
    Mr. Moore. Senator Dayton, I see that as a primary role. 
The Office of Legislative Affairs has a responsibility to make 
sure that this committee and all of Congress receives 
information on a timely basis that is accurate, and that it 
comes on a bipartisan basis, and that would certainly be my 
strongest commitment, to make sure that the committee is 
informed and that Congress is informed.
    I recognize that it is important that Victoria Clarke and I 
work very closely together, because one of the challenges in 
legislative affairs these days is to make sure that Members of 
Congress are not surprised in getting ahead of the flow of 
information in today's world, where information spins around so 
rapidly, and sometimes announced by the Department and other 
times not announced by the Department. It is a challenge to get 
ahead of the public flow of information, but it is my 
commitment to make sure that Congress is well-informed, and 
that we avoid surprises.
    Senator Dayton. Thank you.
    Mr. Haynes, I am not an attorney. I will not even try to 
comprehend the scope of your responsibilities, but I wish you 
well. [Laughter.]
    Thank you, Mr. Chairman.
    Chairman Warner. I thank you very much. Our colleague from 
Georgia.
    Senator Cleland. Thank you very much, Mr. Chairman. I just 
want to say that it is an honor to be here with Powell Moore, 
who has risen higher than any former escapee of a mental 
institution. [Laughter.]
    We are just honored to be with you Powell. I would ask 
unanimous consent that a letter endorsing Powell Moore for this 
position from Senator Zell Miller be entered into the record?
    Chairman Warner. Without objection.
    [The information referred to follows:]
               Prepared Statement by Senator Zell Miller
    I am pleased and honored to endorse Powell A. Moore for the 
position of Assistant Secretary of Defense for Legislative Affairs. To 
say that he is eminently qualified for this position would be an 
understatement. His distinctive record of public and private service is 
across a spectrum of military service, politics, journalism, and 
industry.
    A native Georgian, he has served as a key staff member with such 
notable politicians as Senator Richard B. Russell and President Ronald 
Reagan. Most recently, he has served as the Chief of Staff for the 
distinguished Senator from Tennessee, Fred Thompson.
    For more than 30 years, Powell Moore has been active in Washington 
public policy affairs, and his breadth and depth of experience will be 
a tremendous asset to the Department of Defense. I look forward to his 
service as the Assistant Secretary of Defense for Legislative Affairs, 
and enthusiastically recommend that this esteemed committee confirm 
this appointment.

    Senator Cleland. I had actually intended, Mr. Moore, to be 
here to introduce you but I had another committee engagement. I 
think it is marvelous that you have strung together such a 
magnificent set of public service accomplishments, particularly 
in regard to this committee. Dick Russell was one of my great 
heroes in life, and for you to start off your career here in 
Washington with him on his staff is a great tribute to you.
    Then, of course, the endorsement by Senator Nunn, a former 
chairman of this committee, and then of course coming from 
Milledgeville--we laugh and joke, but Milledgeville is, of 
course, the home of Carl Vinson, and he is legendary there in 
that State.
    May I just say, it is an honor to support you, and I wish 
you well in your activities.
    Mr. Moore. Thank you.
    Senator Cleland. May I say now, Mr. Aldridge, it is my role 
to be the skunk at the picnic here. I do not relish this role. 
I want you to know that my respect for you is a great respect 
for your public service and for your willingness to offer 
yourself for public service once again. May I say to you that 
my questions and the tone of my questions are nothing personal, 
but it rises out of a frustration that I had with several 
issues in the 5 years that I have been here.
    I am sorry that you and I were not able to meet before this 
hearing. I hope we will be able to meet privately and go over 
some of these issues, because quite frankly, in all honesty, my 
support for your nomination is contingent upon successful 
answers to questions that I have. We have been trying to get 
out of this committee for a number of years, answers regarding 
logistical support for the Air Force, particularly in terms of 
air logistics centers.
    I would like to get it straight first of all, did you say 
that this position was once formerly Under Secretary for 
Acquisition, Technology, and Logistics, and now it is just 
Acquisition and Technology?
    Mr. Aldridge. No, sir. It was originally created as 
Acquisition and Technology, and it has been augmented to 
include, now, logistics, Deputy Under Secretary for Logistics 
and Materiel Readiness that now reports to the Office of the 
Under Secretary.
    Senator Cleland. So your position that you seek is Under 
Secretary for Acquisition, Technology, and Logistics?
    Mr. Aldridge. Yes, sir.
    Senator Cleland. Which brings me directly to my point.
    In recent years, both the House Armed Services Committee 
and the Senate Armed Services Committee have expressed our 
views that the services were outsourcing to the private sector 
work on weapons systems we considered vital to the national 
security.
    The requirement to maintain a core capability in the public 
sector was written into law--written into law--for fiscal year 
1998 to ensure that we could perform maintenance, repair, and 
long-term sustainment of our critical weapons systems during a 
time of war or national crisis, and we have been through 
several moments of national crisis just since I have been on 
this committee. One was Milosevic, two was Saddam Hussein.
    When it comes to aircraft which we relied on heavily in 
those engagements, we have established our great air logistics 
centers to perform this role. You might want to check it out, 
but I understand that this country has never gone to war 
without a depot system, either branch.
    When I was a young lieutenant, signal officer with the 
First Air Cavalry Division in Vietnam, as a matter of fact, my 
mission was to provide communications for logistical support, 
and what that meant was, sometimes aircraft, helicopters in 
this instance, went all the way back to the States for depot 
maintenance, and in some cases my radio systems went all the 
way back to depot maintenance and came back adjusted or finer 
tuned for the war we were fighting, so depot maintenance is the 
way we go to war and the way we fight.
    The acquisition function has a profound effect on these 
centers, as we are in an age when the procurement of a system 
such as, say, the C-17 includes stipulations that determine how 
and where those systems may be maintained.
    Since I have been on the committee, my colleagues and I 
have worked hard to protect the essential capabilities that 
reside in our air logistics centers. We included provisions in 
the fiscal year 1998 and fiscal year 1999 authorization acts, 
passed this committee, passed the Senate, passed Congress, 
signed into law by the President, that required the DOD to take 
specific steps to define core capabilities, the ability of the 
services to go to war. That is what I determine is a core 
capability, to preserve the level of maintenance in these 
public depots and to establish plans for the maintenance of 
some specific systems in these depots.
    I am here today to tell you that I think the work of this 
committee and Congress in this arena has been ignored by your 
predecessors. You were not part of the sins of the past, but it 
is your turn in the barrel now. I intend to ensure that this 
does not occur again. In an age when the technology of our 
systems is changing rapidly and in profound ways, the failure 
to define a core capability that specifically includes newer 
systems, the failure to assign a portion of the maintenance 
work load on newer high-tech systems, to our air logistics 
centers, and the failure to develop a long-range plan for 
preserving the work load at these centers, threatens the 
continued viability of this key leg of our defense 
infrastructure.
    I know you have recently been nominated to the post, and I 
do not hold you accountable for what went on in the past. I 
also know you have familiarity with these issues, so I have 
some questions for you that I must have answered.
    The first involves a definition of core capability. It is 
my understanding that the term, core, includes specific weapons 
systems such as the C-17. The GAO has criticized the Air Force 
for not doing enough to establish an in-house maintenance 
capability for the C-17. We are almost 8 years into the 
operational life of that system. None of the maintenance on 
this system is being done in our air logistics centers.
    Do you define core capability to include the specific 
systems that are essential and widely used in the conduct of 
military operations?
    Mr. Aldridge. Yes, sir.
    Senator Cleland. Thank you. Will you ensure that the DOD 
complies with the intent of Congress in this regard?
    Mr. Aldridge. If confirmed, yes, sir.
    Senator Cleland. Thank you.
    My second issue concerns the long-term strategy for 
assigning work to our air logistics centers. I and many of my 
colleagues believe that the long-term strategy for ALC work 
should include new weapons systems, but the DOD and the 
services are content to place work on older weapons systems in 
the depots and ALCs. This allows the services to say to 
Congress, well, the depots are full, they could not possibly 
handle the work of other systems, hence, they justify their own 
argument to out-source and, in so doing, they are actually 
undermining the future viability of our public maintenance 
facilities.
    Will you ensure that the DOD develops and implements 
expeditiously a long-term strategy for maintenance of new 
weapons systems that assigns work on the systems to our ALCs 
from the date they enter our inventory?
    Mr. Aldridge. Sir, if confirmed--I cannot address the 
specifics of how all of that will come out. I will agree that 
we need a long-term plan for how we are going to address the 
weapons systems support for our military forces, and I will, if 
confirmed, agree to undertake such a long-term plan. How that 
will come out, I cannot predict.
    Senator Cleland. Thank you very much. I appreciate that 
answer in good faith. I, in good faith, will have to withhold 
my support for your nomination until you and I actually meet 
privately and personally to go over these key points, because 
these are central to the question of whether or not I support 
your nomination.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Do you wish another minute or two of time, 
Senator?
    Senator Cleland. No, sir. I think time spent with the 
nominee, Mr. Aldridge, could best be spent privately and 
personally as we go over some of these sensitive matters.
    Chairman Warner. Very well, and the nominee will make 
himself available. I will take a few questions, and then if 
other Senators wish to continue, I would be happy to recognize 
them.
    Now, Mr. Moore, I have had the pleasure of knowing you for 
many years, and consider you a very valued personal friend, so 
I want the record to reflect that. You have observed through a 
series of presidencies the relationship between the executive 
branch and the legislative branch on the subject of 
consultation, and that subject is particularly important as it 
relates to matters of national security.
    It primarily involves the Departments of State and Defense. 
I think there is wisely no clear definition laid down. Each 
President will establish his or her, whatever the case may be, 
guidelines in the future. What advice would you give to the 
current Secretary of Defense, who is very knowledgeable on this 
himself, and have you had an opportunity to discuss that issue 
with him? I feel that it is a very important function that you 
will be the, I think, principal advisor to the Secretary, and I 
hope that you will strengthen the subject of consultation and 
increase the effectiveness of it. What views do you have?
    Mr. Moore. I agree with you on the importance of 
consultation, Mr. Chairman, and I would comment that 
consultation is a continuing proposition and should not be done 
episodically when we have a problem or an emergency of some 
kind.
    It should be done on a continuing basis, and it is 
essential to the effective operation of the Department of 
Defense, it is essential to the effective execution of a 
national security and foreign policy to have an open line of 
communication, especially with the leadership of Congress, the 
Chairman of the Armed Services Committee especially, and the 
Ranking Minority Member of the Armed Services Committee. There 
should be a continuing dialogue, and it should not be done 
episodically.
    Chairman Warner. I appreciate that. I would say to date, 
Secretary Rumsfeld and Secretary Wolfowitz have, I think, been 
very respectful of this subject, and others in the Department, 
and we have had excellent working relationships between this 
committee and those who are observing the Secretary at the 
moment. I felt that John Veroneau and Sandi Stuart, who 
preceded you in this position, both executed that 
responsibility with great expertise.
    Mr. Moore. I have spent some time with both of them over 
the past several weeks, and continue to stay in touch with both 
of them. I would point out that Secretary Rumsfeld, like 
several of his predecessors, including the Secretary under whom 
you served, Secretary Laird, is himself a former Member of the 
House of Representatives. He was also a former staffer, and I 
think he has a special appreciation for the importance of 
maintaining a dialogue and consultation between the two 
branches.
    I think, based upon what I have heard--I have not been 
engaged in the process in advance of confirmation--that he has 
been very diligent in staying in touch with the House and the 
Senate since he was confirmed a couple of months ago.
    Chairman Warner. I thank you.
    Now, Mr. Aldridge, the shrinking industrial base is of 
great concern to all of us, as I know you are likewise 
concerned. You will be the principal advisor to the Secretary 
of Defense and the President on this subject. It is brought 
about, frankly, because of declining defense budgets for a 
dozen or more years under both Republican and Democratic 
administrations, but this is a dangerous world, and our 
national defense can really be no stronger than the industrial 
base's capacity to provide, first the research and development, 
and then the systems that are needed to meet today and tomorrow 
and well into the future the adversaries and the threats posed.
    We are also facing a unique situation in that the one-world 
market is inducing overseas firms to buy subsidiaries here in 
the United States and to go into direct competition with the 
industrial base in this country. I think it would be wise if we 
reflected a few minutes on that and this committee received 
your views on that subject.
    Mr. Aldridge. Yes, sir, I share all of those views. This 
position is awesome in that respect. We have seen just recently 
an issue on naval shipbuilding that is going to be a very 
critical----
    Chairman Warner. I purposely do not bring that up, because 
you may have a responsibility in that.
    Mr. Aldridge. Yes, sir, and it is something that has to be 
looked at very carefully. The health of our industrial base is 
very important, as I pointed out in one of the goals that I 
would like to pursue, if confirmed. The health has to do with 
not only the health of the prime contractors but of the second-
tier contractors, the health of our smaller and disadvantaged 
businesses. They make up over 98 percent of our industrial base 
and a significant amount of funding.
    All of those are factors that we must take into account and 
make sure that we address these mergers and acquisitions in a 
way that we certainly can preserve our national security and 
the future competitiveness of our industrial base, and health. 
All of those are key factors in the decision process, and it is 
one that is extremely important.
    As I point out, the capabilities of our Armed Forces are 
critically dependent upon our industrial base to provide those 
equipments and spare parts and training aides that make them 
work effectively. It is a very critical part of our 
responsibility and, if confirmed in this position, I will 
address it at the very highest priority.
    Chairman Warner. Well, given your background, you are 
uniquely qualified to work on this issue. I hope that you will 
find the time to listen to the CEOs and others of American 
industry and give them an audience.
    Mr. Aldridge. Yes, sir, I plan to do so.
    Chairman Warner. They deserve it, because so often in my 
visits with them I hear that we are less inclined to do defense 
business. It is just too difficult to do business with the 
Department.
    The delays in receiving the payments, that is another 
subject that I monitor very carefully here, and will be working 
with you on, and there is plenty of business in the private 
sector, but if we lose their cooperation and their insight and 
their long, many years of contribution, it is irreplaceable, so 
keep an eye on it, and also for this committee.
    I am proud to say that I have taken somewhat of a 
leadership role, have put in a series of laws about set-asides, 
set-asides to enable the burgeoning number of small businesses, 
many of them with women or CEOs of principal stockholders or 
minorities, and to the best of my knowledge, those programs 
have been successful and have returned not only a great value 
to the American taxpayer through their productivity, but I 
think they have enabled these firms to take root and to grow, 
and I hope that you will be respectful of that process.
    Mr. Aldridge. Yes, sir. As I stated in my opening comments, 
that is clearly one of the areas we must pay attention to.
    Chairman Warner. The procurement process, again, many firms 
are just totally frustrated with the difficulty there, and are 
looking elsewhere to do their business. You have covered that 
today, and I think quite satisfactorily, but this committee 
will work on it a great deal.
    Now, to our chief counsel here, you may not know the answer 
to this question but you can take it for the record, and that 
is, prior to leaving office, President Clinton signed a treaty 
establishing an international criminal court. The Pentagon has 
been very concerned, this Senator has been concerned, Senator 
Helms and others here in the Senate are very concerned, that 
the terms and conditions of that treaty leave some doubt as to 
the ability to protect men and women in uniform as they carry 
out the orders of the commander in chief beyond our shores.
    Now, the Senate has, I think, very wisely and properly not 
yet rendered its advice and consent on that treaty. Do you have 
any knowledge of it? Have you looked into it, and will you do 
so in the future?
    Mr. Haynes. Senator, I have some limited knowledge of it 
from reading the newspapers. I have not been part of the 
process. It gives me great concern as well, and I can assure 
you I will be looking at it.
    Chairman Warner. I would urge that if this question comes 
forward at such time, that you stay in close consultation not 
only with your Secretary but if confirmed, with Assistant 
Secretary for Legislative Affairs Moore, because at this point 
in time I think it unlikely that the Senate would give its 
advice and consent. I rarely make those predictions, but in 
this case we are grievously concerned about it.
    When we send men and women into harm's way to carry out the 
orders of the commander in chief of this country, and in 
conjunction with the service of our allies, we have to give 
them the maximum protection when they return home, hopefully 
safe and sound, having fulfilled their responsibilities, and 
they should not be then subjected to, I think, any court of law 
unless there is clear evidence of malfeasance or wrongdoing.
    Mr. Haynes. Senator, if confirmed, I would look forward to 
working with you on that.
    Chairman Warner. Thank you very much.
    Mr. Aldridge, one of the principal criticisms of the 
Department of Defense is that the military services continue to 
pursue their individual systems from logistics to data 
management, which increases cost, and I suppose some say 
hinders interoperability. Although there have been efforts to 
remove these service stovepipes in the past, they continue to 
exist.
    I am a firm believer in the three Departments, the Army, 
the Navy, and the Air Force. I think a certain amount of 
competition between them, and a certain amount of independence, 
and a certain amount of individuality is in the best interests 
of our country's overall national defense, but certainly on the 
question of interoperability that has been an old issue around 
here, and I would hope you would address that. Do you have 
views on that?
    Mr. Aldridge. Yes, sir, I share all the views you just 
outlined. To have an Air Force and a Navy, two aircraft who 
cannot talk to each other seems somewhat silly, and I think 
this has to be part of our acquisition process, that when a 
weapons system comes before the Defense Acquisition Board for 
determining its baseline program, interoperability has to be 
one of those criteria that has to be addressed, to show by the 
program managers how this is going to be done, otherwise the 
program does not get approved. It has to be almost that 
serious, I believe. I strongly believe that.
    If confirmed in this position, I will do everything in my 
power to make interoperability one of the criteria, just as 
range and payload and things of that nature, the tanks or ships 
or any of the systems we buy, the criteria for interoperability 
has to be a key element of its performance, and I would intend 
to do that, if confirmed for this position.
    Chairman Warner. Your predecessors have struggled with it. 
Much remains to be done.
    Mr. Aldridge. Yes, sir. It will not be an easy job.
    Chairman Warner. Well, you tackle it and do what you can, 
and you will get support from this committee.
    Now, I am going to read a rather complicated question here. 
I think you would be well-advised just to listen, and at this 
time I will not elicit further response from you. At this very 
moment it may well be the Senate will turn to a piece of 
legislation. I wish to comment on it in the question and then, 
if confirmed hereafter, you will be given the responsibility to 
deal with this issue.
    In your answers to pre-hearing questions you state that, 
and I quote, the ready availability of information technology, 
satellite surveillance, weapons of mass destruction 
technologies, and the trained personnel to utilize them, 
present a clear challenge to the U.S. military dominance, and 
that, quote, the U.S. is the largest technology producer, and 
therefore it must protect its most sensitive technologies, end 
quote.
    The Senate may shortly be turning to the Export 
Administration Act. This issue is very timely. I am of the view 
myself, personally, that it would be wise not to bring this up 
at this time, given the fluidity of our relationship with a 
major overseas acquirer of U.S. technology, namely China. I 
think that situation should settle down.
    Furthermore, I think, wisely, the administration has looked 
at dealing with this subject in an executive order, and I think 
out of deference to our President the opportunity should be 
given to the administration to issue that order, and then 
Congress determine, in its own infinite wisdom, whether or not 
further legislation is needed, but I wish to put you on alert 
for that one.
    Mr. Aldridge. Yes, sir.
    Chairman Warner. Mr. Moore--it is interesting how fast time 
moves, and technology. While I am on that subject, you know the 
relationship between the Department and Congress is based on a 
continuing dialogue. At this time of the Internet, controlling 
the flow of information puts a challenge to us. In the year of 
the Internet, how do you anticipate you will control the flow 
of information between the Department and Congress?
    Mr. Moore. Mr. Chairman, it is a subject I have thought 
about, and I intend to look into. If I am confirmed, and get to 
the Department of Defense, it is going to be a high priority 
with me. I recognize that we are in a different age, and we 
need to bring ourselves up-to-date. I am not exactly sure what 
kind of web page the Office of Legislative Affairs has, but I 
intend to look into it, and it offers a lot of advantages in 
the flow of information, and I intend to take full advantage of 
those advantages.
    When I arrived in Senator Thompson's office almost 3 years 
ago, I made it a high priority to establish a good web page for 
Senator Thompson, and a couple of years ago he received a prize 
for having one of the best in the Senate, and so with that 
record, I think I have demonstrated that I recognize the 
importance of using the Internet to dispense information and 
also to obtain information, and I intend to work very hard to 
bring the Office of Legislative Affairs into the 21st century 
in that regard.
    Chairman Warner. Well, it has come on very rapidly. It is 
there, it is growing, and I have to tell you, I have an 11-
year-old grandson that reads my web page and sends me e-mails 
on it continuously, so I am on alert status.
    Mr. Moore. Well, I like your advice, and I look forward to 
the advice of other members of the committee in that regard 
also, if I am confirmed.
    Chairman Warner. Mr. Haynes, does your office possess the 
in-house technical expertise to deal with the new areas of law 
such as cyber law, which will be of great concern in the 
future? I hope that if you find there are some deficiencies, 
that you remedy those and do your very best to get up to speed 
on it.
    Cyber security is a subject that is of great concern to 
this committee and, indeed, this committee last year initiated 
a scholarship program for the inducement of young persons to 
undertake a specific education in the area of cyber security at 
Government expense, in return for a commitment to either go 
into uniform and/or the civilian part of the military to serve 
as advisors to the Department on this subject. Do you have any 
views on this?
    Mr. Haynes. Well, Senator, it is an exciting area in all 
disciplines, and law is no exception. I found it quite useful 
to use the Internet in my own private practice, increasingly 
so, but there is a long way to go. One of the benefits of the 
whole medium is that it seems to be boundless in its 
opportunity, but there are dangers, as you point out, and the 
law has to be attentive to that, and that is something that I 
hope to spend a lot of time on, if confirmed.
    Chairman Warner. Attention has been focused recently on the 
implications of increasing the average age and retirement in 
the Government's civilian workforce. It is a very important 
part of the Department of Defense. It is often overlooked 
because of the higher visibility of those in uniform.
    There are some fears that the Government will lose its most 
qualified and experienced personnel, and we will be 
disadvantaged because of existing civilian pay scales and other 
factors in attracting highly qualified replacements, and the 
question goes to all three of you, what steps would you hope to 
initiate to alleviate this problem? Why don't you start off, 
Mr. Haynes.
    Mr. Haynes. Well, Senator, we are mortal, and you cannot 
stop the passage of time. People are going to want to retire. 
The key to addressing that problem is not limited to law. It is 
making sure that we get junior people well-trained, and try to 
hang on to their expertise and capture the institutional 
knowledge that exists in the system.
    Chairman Warner. Thank you. Mr. Aldridge.
    Mr. Aldridge. Yes, sir. I share your concern. I have 
noticed in the acquisition workforce, we have lost 50 percent 
of the acquisition workforce since 1990 as a result of coming 
down. We have not hired young people because they just do not 
fill the jobs, and so the workforce tends to age with time.
    That is a real serious problem, because the demands that 
are going to be placed upon our civilian workforce are going to 
be increasing in the future as new technologies, as you point 
out, are so rapidly appearing. The challenges of new weapons 
systems, the challenges of making sure that the Government gets 
the proper equipment from our contractors, and the dealings 
with the industrial world are all very serious activities.
    Congress did pass a law, I think Senator Levin mentioned, 
about giving the laboratories some individual hiring 
authorities to bring in some new scientists and engineers, and 
the Department has not been, I guess, addressing that in any 
degree.
    I would intend, if confirmed, to look into that matter to 
see why hasn't the Department responded to that flexibility 
that exists, and maybe we can even look at flexibilities that 
go beyond just the laboratories, to give people the incentives 
to bring in new people into this workforce. I think it is an 
extremely important issue.
    Again, I put that as one of my goals, if confirmed in the 
position, to address the quality and morale of the acquisition 
workforce. I think it is a very important issue we need to 
address.
    Chairman Warner. We must remember that the civilian 
workforce, whether it is acquisition or anywhere else in the 
Department, they are full partners in that Department and in no 
way have any second-class status, and we have to be ever 
watchful to correctly and rightfully give to them that 
partnership status.
    Mr. Aldridge. Yes, sir.
    Chairman Warner. Do you have anything to add on that?
    Mr. Moore. Mr. Chairman, if confirmed as Assistant 
Secretary for Legislative Affairs, it would be my intention to 
work with this committee and work with other committees of 
Congress, like the Committee on Governmental Affairs, to 
address the pay and benefit issues that might be an impediment 
to public service.
    I would also say that, beyond that, while we want to 
address the pay and benefit issues, I think we need to create a 
sense of pride in public service and to attract the best and 
the brightest.
    Chairman Warner. Let us say, create a greater sense of 
pride.
    Mr. Moore. A greater sense of pride, yes, sir. That 
expresses it better.
    Chairman Warner. I thank you.
    Senator Dayton, do you have any further questions?
    Senator Dayton. No, I do not, Mr. Chairman. I would just 
like to compliment the nominees on their excellent responses, 
and also compliment them on their families. They have been 
wonderfully supportive and patient, and your children, Mr. 
Haynes, are extremely well-behaved. [Laughter.]
    Chairman Warner. We have had an excellent hearing. I look 
forward to these hearings for confirmation. We do it very 
thoroughly, very carefully. We will have an executive session 
of this committee in 222 Russell, and I wish each of you well, 
together with your families. We are adjourned.
    [Whereupon, at 11:12 a.m., the committee adjourned.]

    [Prepared questions submitted to Edward C. Aldridge by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                    April 24, 2001.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                Edward C. Aldridge.
cc: Honorable Carl Levin,
      Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms? What 
is your view of the extent to which these defense reforms have been 
implemented? What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Yes, the goals of Congress in enacting these defense 
reforms, as reflected in section 3 of the Goldwater-Nichols Department 
of Defense Reorganization Act, can be summarized as strengthening 
civilian control; improving military advice; placing a clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; and enhancing the effectiveness of 
military operations and improving the management and administration of 
the Department of Defense.
    Question. Do you agree with these goals?
    Answer. Yes, I support full implementation of the Goldwater-Nichols 
reforms and agree with its goals. The enactment of Goldwater-Nichols 
significantly improved the organization of the Department of Defense, 
focused our joint warfighting capabilities, and enhanced the military 
advice received by the Secretary. If confirmed, I will fully support 
the intent of the reforms and advocate policies that will facilitate 
joint operations, streamline acquisition management and oversight, and 
enhance the department's ability to respond to our 21st century 
national security challenges.
                                 duties
    Question. Section 133 of Title 10, United States Code, describes 
the duties of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(ATL)).
    Assuming you are confirmed, do you expect that Secretary Rumsfeld 
will prescribe additional duties for you?
    Answer. I am sure as I become even more familiar with the issues 
and the organization there may be additional duties that the Secretary 
will ask me to do.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties and those outlined in the 
law and applicable DOD directives?
    Answer. I have served in various assignments in the Pentagon, 
working in planning and evaluation, analysis of strategic systems, and 
as the Secretary of the Air Force, and also at the Office of Management 
and Budget. Additionally, I have experience in the private sector at 
Systems Planning Corporation, LTV Aerospace, McDonnell Douglas 
Electronic Systems, and, most recently, as the Chief Executive Officer 
of The Aerospace Corporation. I believe the combination of my 
government service along with my private sector experience provides me 
with the best understanding of both worlds.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. I think the main thing I need to do now is to learn and 
understand more completely current issues and challenges facing the 
Department today.
    Question. Section 133(a) of Title 10, United States Code states, 
``The Under Secretary shall be appointed from among persons who have an 
extensive management background in the private sector.''
    Describe how your background qualifies you to meet this 
requirement.
    Answer. My private sector management background consists of serving 
in various management roles to include Vice President at Systems 
Planning Corporation, responsible for strategic and conventional forces 
and strategic planning; President of McDonnell Douglas Electronic 
Systems Company; and Chief Executive Officer of The Aerospace 
Corporation. This corporation is dedicated to solving critical national 
problems through science and technology. I believe this experience 
provides me with the insight and abilities I will need to perform this 
new assignment, if I am confirmed.
                    major weapon system acquisition
    Question. Secretary Rumsfeld testified at his confirmation hearing 
that the cycle time for major acquisition programs conducted over the 
past several decades averages between 8 and 9 years. Others have stated 
that the cycle time may be as long as 15 to 20 years. The Secretary 
stated that this cycle time is not sufficiently responsive to urgent 
new challenges and rapidly emerging technological developments.
    What specific steps could the Department of Defense take to reduce 
cycle time for major acquisition programs?
    Answer. The Department is committed to delivering advanced 
technology to the warfighter faster. Reduced acquisition cycle time can 
be achieved through: (1) rapid acquisition with demonstrated 
technology; (2) time-phased requirements and evolutionary development; 
and (3) integrated test and evaluation. If confirmed, I would work to 
implement these techniques.
    Question. Do you believe that incremental or phased acquisition 
approaches could help address this problem?
    Answer. Yes. Evolutionary acquisition based on time-phased 
requirements is an effective approach worth pursuing where appropriate.
    Question. One of the features of the Department's acquisition 
system that is frequently criticized is the extensive ``concurrency,'' 
or overlap between the development and production phases of major 
weapon system acquisition programs.
    Where and under what conditions should concurrency be used in the 
development and production phases of DOD's major weapon system 
acquisition programs?
    Answer. Concurrency should be used in the development and 
production phases of major weapon system acquisition programs when 
there are near-term threats that must be addressed; and as one 
methodology to help reduce cycle time. For example, combining 
developmental testing and operational testing--when it makes sense--is 
a form of concurrency that can have very beneficial results in 
acquisition streamlining.
    Question. Do you believe there has been too much concurrency?
    Answer. The amount of concurrency in a program is essentially a 
business judgment--balancing risk (technology maturity, etc.) and early 
fielding (cycle time reduction) capability for the warfighter.
    Question. If so, what steps should be taken to reduce concurrency?
    Answer. The acquisition strategy should specifically address the 
benefits and risks associated with reducing lead-time through.
    Question. Over the last 3 years, the General Accounting Office has 
prepared a series of reports for this committee, comparing the DOD 
acquisition practices with those of the private sector. The GAO's 
leading conclusion has been that private sector programs are more 
successful in large part because they consistently require a high level 
of maturity for new technologies before such technologies are 
incorporated into product development programs. Department of Defense 
Instruction 5000.2, which governs the acquisition of major weapon 
systems, was recently re-written to require that new technologies be 
demonstrated in a relevant environment (preferably an operational 
environment) before they may be incorporated into DOD acquisition 
programs.
    Are you familiar with the revised version of DOD Instruction 5000.2 
and, if so, what are your views on this revision?
    Answer. Yes, I am familiar with the revised DOD Instruction 5000.2 
and believe that it is a good first step in the right direction in 
responding to the GAO's conclusions.
    Question. Do you believe that the process of testing and 
demonstrating new technologies is more efficiently conducted in the 
context of major acquisition programs, or in stand-alone technology 
programs?
    Answer. The process should be a combination of both. For example, I 
believe the DOD Science and Technology (S&T) community should encourage 
initiatives--such as Advanced Technology Demonstrations (ATDs)--that 
are designed to accelerate the transition from the S&T base to useful 
military products. These types of initiatives are executed more in the 
context of major acquisition programs. Yet, basic and applied 
research--more characteristic of stand-alone technology programs--are 
still the foundation for equipping tomorrow's warfighter with 
technologically superior weaponry.
    Question. Would the DOD's major acquisition programs be more 
successful if the Department were to follow the commercial model and 
mature its technologies with research and development funds before they 
are incorporated into product development programs?
    Answer. The DOD acquisition process depicts three major activity 
phases: technology development, system development, and production. 
``Technology'' is separate from ``system'' development with more 
emphasis on mature technology. As a result of a single system 
development phase, entry is made with more matured concepts and 
technologies.
    Question. The Washington Post reported on March 11 that the 
Department of Defense has been soliciting allies to make contributions 
to help pay for research and development on the Joint Strike Fighter. 
According to the article: ``Using a sliding scale similar to the 
`angels' and `patrons' list of a theater company, the Pentagon is 
offering select allies the chance to contribute anywhere from $2 
billion for a `Level One' partnership to $250 million for a `Level 
Three' stake in the Joint Strike Fighter. In return, the allies can put 
their officers on teams developing key areas of technology or even have 
a say in which contractor--Lockheed Martin or Boeing--would build the 
plane.''
    Do you believe that it is appropriate for the Department of Defense 
to ``sell'' foreign governments access to its technology development 
teams (or to grant such access in return for monetary contributions)?
    Answer. The Department of Defense has a long history of successful 
cooperative development programs with our allies, as exemplified by the 
F-16 program. Foreign development investments are negotiated on a case-
by-case basis, with technology access subject to National Disclosure 
Policy.
    Question. Are you aware of any legal authority that would permit 
the Department of Defense to allow a foreign government--or any other 
entity outside the U.S. government--to have a say in the selection of a 
source for a Federal contract?
    Answer. The Department of Defense has the legal authority to enter 
into cooperative development programs, to include allowing foreign 
government representatives to participate in the source selection 
process in some fashion. In the case of the Joint Strike Fighter, the 
United Kingdom will be represented in the source selection process, in 
an evaluation and advisory capacity only.
    Question. Are you concerned that this effort could limit the 
flexibility of the Department of Defense to reshape the defense budget 
in accordance with the results of the Secretary's strategic review and 
quadrennial defense review?
    Answer. The Secretary's strategic review is taking into 
consideration many factors, and it is premature to speculate on the 
decisions to be drawn. Among the factors to be considered should be the 
international implications of such programs as the Joint Strike 
Fighter.
                          test and evaluation
    Question. The Department has frequently been criticized for failing 
to adequately test its major weapon systems before they go into 
production. In recent years, the Department has given the Director of 
Operational Test and Evaluation increased authority over developmental 
testing.
    Would you agree that a strong, independent Director of Operational 
Test and Evaluation is critical to the success of the Department's 
acquisition programs?
    Answer. A strong, independent Director of Operational Test and 
Evaluation is critical to ensuring the Department's acquisition 
programs are realistically and adequately tested in their intended 
operational environment. As an independent voice, the Director of 
Operational Test and Evaluation provides operational test and 
evaluation results to the Secretary of Defense, other decision-makers 
in the Department, and Congress before they proceed beyond low rate 
initial production.
    Question. Do you believe that supervisory authority over 
developmental testing is an appropriate role for the Director of 
Operational Test and Evaluation, or could this role compromise the 
Director's independence?
    Answer. The Director, Operational Test and Evaluation does not have 
a supervisory position over developmental test and evaluation.
    Question. Developmental test and evaluation and operational test 
and evaluation are separate, yet complementary, elements in the 
acquisition process. Developmental test and evaluation is an integral 
part of system engineering designed to verify performance or to 
discover anomalies; and, through a test-fix-test process, assure the 
system design and mitigate technical risk. Operational test and 
evaluation is used to determine a system's military effectiveness and 
suitability in its intended operating environment.
    Do we need to take any steps to ensure that developmental testing 
is realistic, and is used for its intended purpose of identifying and 
addressing potential weaknesses in an acquisition program at an early 
stage?
    Answer. There are several steps we can take to ensure developmental 
test and evaluation is realistic and used for its intended purpose. 
Developmental test and evaluation is a critical element of the 
acquisition process. There needs to be a balance between focused 
developmental test and evaluation and schedules that will sufficiently 
mitigate program risk. This needs to be done while ensuring a high 
probability of successfully completing operational test and evaluation 
the first time around and fielding systems that meet warfighter 
requirements.
    We should get the testers involved early to ensure that an adequate 
test and evaluation program is defined, addressed, and maintained in 
both program budget and schedule. We need to devote sufficient 
resources to conduct well-planned test programs and execute the program 
properly.
    We need to increase discipline in the developmental test and 
evaluation process by assuring systems have passed their exit criteria 
and demonstrated a fundamental core capability in developmental test 
and evaluation before entering initial operational test and evaluation.
                         acquisition workforce
    Question. There has been considerable pressure to reduce 
acquisition organizations on the basis of absolute numbers. The DOD has 
reduced its acquisition workforce approximately 50 percent, from the 
end of fiscal year 1990 to the end of fiscal year 1999, while the 
workload has essentially remained constant, and even increased by some 
measures.
    Are you concerned that reductions to the acquisition workforce will 
have a negative effect on effective program management, and if so, how 
do you plan to address this problem?
    Answer. I am concerned about the effects of the reductions on the 
acquisition workforce. As the Department continues to emphasize 
contracting out and competitive sourcing, the skills, training, and 
experience of the acquisition workforce will be critical in effectively 
managing these contracts. In addition, I am concerned that the DOD may 
be faced with a significant demographic challenge as 50 percent of the 
acquisition workforce will be eligible to retire in the next 5 years.
    Question. Does our current acquisition workforce have the quality 
and training to adapt to new acquisition reforms, as well as to the 
increased workload and responsibility for managing privatization 
efforts?
    Answer. The morale of the workforce after 10 years of downsizing is 
a concern to me, as is having a workforce with the right size and 
skills. I will ensure the development of a strategic human resource 
plan that includes educating the current workforce by using modernized 
web-based training, and includes maximizing current hiring and 
recruiting authorities to attract new talent. If confirmed, I will 
capitalize on web-based learning techniques for continuous learning 
with increased emphasis on commercial practices to accelerate 
acquisition and logistics excellence and enable more cross functional 
training.
                         science and technology
    Question. The Strom Thurmond National Defense Authorization Act for 
Fiscal Year 1999 established the goal of increasing the budget for the 
defense science and technology program by at least 2 percent over 
inflation for each of the fiscal years 2000 to 2008. This goal was not 
met in the fiscal year 2000 and fiscal year 2001 budget requests. In 
his speech at the Citadel last year, then-Governor Bush spoke of his 
support for increased research and development spending and a strong 
and stable technology base.
    Do you believe that a substantial increase in the Department's 
science and technology budget is needed?
    Answer. Yes, I believe the Department's Science and Technology 
(S&T) budget needs to be increased, consistent with the President's 
blueprint and balanced with other DOD needs to ensure the technological 
superiority of our Armed Forces. We need to emphasize revolutionary 
concepts in the S&T budget to provide more dramatic advances in 
capabilities that the President seeks.
    Question. Congress has authorized the Department to give laboratory 
directors direct hiring authority to enable them to compete more 
effectively with the private sector for top scientific and engineering 
talent. To date, the Department has been reluctant to use this 
authority.
    Do you support giving the Department's laboratory directors the 
authority to make direct hires without having to go through a lengthy 
review process, which can take up to 18 months?
    Answer. Yes. Our laboratories are vital for our Nation's 
development of future, essential warfighting capabilities.
                        logistics transformation
    Question. Over the last 10 years, the Defense Logistics Agency has 
placed an increasing emphasis on approaches such as prime vendor 
agreements, virtual prime vendor agreements, and direct vendor delivery 
to streamline the Department's logistics systems for commercial items 
such as medical supplies, clothing and subsistence, and common hardware 
items.
    Do you support commercial practices such as these that rely 
increasingly on the private sector to meet the Department's logistics 
needs?
    Do you believe that these types of logistics practices can 
appropriately be expanded to the delivery of non-commercial items, such 
as aircraft spare parts?
    Answer. First I strongly support use of commercial practices in 
defense logistics, where it makes sense from a warfighter's 
perspective.
    The second part of your question (applying those commercial 
practices to non-commercial items) is a bit more vexing. Our challenge 
is defense-unique items, such as fighter aircraft parts, which tend to 
be low-volume, high-cost items, often provided by sole-source 
manufacturers. Therefore, a natural market does not exist. At this 
juncture, I believe the DOD should continue adopting innovative support 
methods, taking advantage of industry- and government-tested best 
practices. This approach employs corporate contracts, supply chain 
management techniques, emerging business technologies, and DOD-
leveraged buying power.
                          competitive sourcing
    Question. Over the past several years, the DOD has increased its 
reliance on the private sector to perform certain activities including 
equipment maintenance and facility operations. Some have supported this 
effort while others have expressed concern that core activities are 
being jeopardized by reducing our reliance on military personnel and 
civilian employees of the Federal Government.
    What approach would you recommend to balance maintaining necessary 
capabilities and outsourcing?
    Answer. The private sector is only offered the opportunity to 
compete to provide services previously performed by Government 
employees when the activity has been determined to be commercial in 
nature and not inherently governmental. They only win such competitions 
when Government analysis of their offer determines that they can 
provide a more cost-effective solution than can the Government 
workforce. Thus, procedures are in place to provide the most effective 
support possible to the men and women of our armed services as well as 
the American taxpayer. I advocate opening all appropriate commercial 
activities to competition.
    Question. Do you believe that public-private competition results in 
significant savings to the Department, and if so, how?
    Answer. Many studies have found that public-private competition 
generates real savings regardless of whether the Government workforce 
or private sector wins the competition. These savings are generally 
reflective of reduced manpower dedicated to the activity, a result made 
possible through adapting better business practices.
    Question. OMB Circular A-76, which establishes the guidelines for 
privatizing most government functions, is slated for scrutiny by a 
congressionally mandated panel of government and private experts in 
this area. The panel, chaired by the Comptroller General, is scheduled 
to report to Congress with specific policy and legislative reforms and 
recommendations for changing the way the government conducts out-
sourcing decisions and implements them.
    What is your view of the current A-76 process?
    Answer. The A-76 process is lengthy and complex, having evolved 
over time to ensure fairness. I would like to see the process 
simplified, and if confirmed, will be involved in the panel you mention 
and am optimistic that we will identify improvements.
    Question. Are there other effective alternatives to achieve the 
benefits of public-private competition?
    Answer. Public-private competition has proven to be the most 
effective option. However, there are situations where Government 
workforce competition is not appropriate, for example when the 
Department identifies a new requirement and there is no Government 
workforce currently performing the activity. In that case, where the 
work is commercial in nature, a competition among private sector 
participants ensures the Government achieves the best value.
                         information technology
    Question. There appears to be potential overlap between the 
responsibilities of the USD(ATL) and the Chief Information Officer 
(currently ASD(C\3\I)) with regards to information technology 
acquisition.
    How do you anticipate sharing responsibilities with the CIO to 
ensure effective acquisition of information technology?
    Answer. I am familiar with the Department's Klinger-Cohen Act and 
CIO responsibilities. If confirmed, I will establish the appropriate 
relationship between the CIO and Office of the USD(AT&L).
    Question. What is your assessment of the Department's ability to 
rapidly assimilate these commercial technologies?
    Answer. I believe the Department is well aware of the rapid growth 
and opportunities available with use of commercial technologies and has 
the necessary incentives to increase access and to incorporate this 
technology as soon as possible.
    Question. Is a growing DOD dependence on commercial information 
technology a positive or negative development?
    Answer. The proper and effective application by DOD of commercial 
information technology is a must for the Department. The benefits 
outweigh the risks. Those risks that are identified will be addressed 
in a comprehensive manner.
                      the defense industrial base
    Question. Some have argued that in many categories the current 
industrial base may no longer be able to support the ``winner-take-
all'' competitions of the past.
    How can we obtain the benefits of competition given the current 
limited number of contractors?
    Answer. The Department has multiple approaches to help us meet the 
challenge of maintaining competition in our consolidated defense 
industry. The DOD has established a formal, rigorous, and centralized 
review process for mergers and acquisitions. I also understand that the 
DOD has in place a series of policies directed at enhancing acquisition 
management insight of the industry, and of the competitive effects of 
DOD buying actions. Finally, the Department has expressed support for 
pro-competitive, security enhancing industrial linkages between U.S. 
defense firms and firms located in coalition partner countries. These 
industrial linkages can facilitate trans-Atlantic competition and keep 
markets open on both sides of the Atlantic as industries consolidate 
and rationalize assets.
    Question. Do you support further consolidation of the defense 
industry?
    Answer. The question of the Department's position on further 
consolidation of the defense industry can best be answered on a case-
by-case basis. The competitiveness and financial health of each 
industrial sector are different with different characteristics to 
consider.
    Question. A November 2000 report by the Defense Science Board on 
the health of the defense industry identified some significant issues 
associated with under-investment and consolidation.
    What is your view of the specific recommendations of the Defense 
Science Board study?
    Answer. We must do what is necessary to retain a robust and 
competitive industrial base. I share many of the ideas addressed in the 
Defense Science Board study.
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. The defense industry still provides the best products and 
services to our warfighters and I believe it will continue to provide 
those products and services in the future. Over the last year, market 
valuations for defense firms have rebounded from a very poor performing 
year.
    Question. Should the DOD assess providing incentives to further 
reduce the number of facilities or is this best left to market forces?
    Answer. While it is better to let the market forces provide the 
incentives for business decisions of our defense firms, I believe there 
are some actions the Department can take to increase the incentives for 
rationalizing inefficient operations.
                          foreign acquisitions
    Question. In an era of global markets that are open to foreign 
investment and rapid technological innovation, understanding the impact 
that foreign acquisitions of U.S. manufacturers have on U.S. national 
security is becoming increasingly important. While the President has 
the authority to block foreign acquisitions of U.S. manufacturers if 
these acquisitions might threaten national security, only one 
acquisition has been blocked since 1988. It is also important that 
decision-makers understand the impact acquisitions have on the ability 
of the U.S. defense industrial base to support the Department of 
Defense programs. In recent years, foreign-owned companies have been 
purchasing a variety of U.S. defense manufacturers.
    What is your position on foreign investment in the U.S. defense 
sector?
    Answer. In general, I favor foreign investment in the U.S. whether 
it be for defense industries or non-defense industries, so long as this 
investment does not pose threats to national security. For some time 
our military operations have been conducted in a trans-Atlantic, multi-
national coalition environment. If we are to achieve both our U.S. 
national security goals and our common strategic objectives with our 
allies, it makes sense for the U.S. to take advantage of economic 
globalization.
    Question. What are your views on the responsibility of the 
Department of Defense to monitor and oversee potential acquisitions of 
U.S. firms by foreign buyers?
    Answer. Since foreign acquisitions of U.S. defense firms could 
directly affect both the reliability of suppliers to the DOD weapons 
acquisition process as well as the transfer of technology under 
development in the DOD, we need to oversee and monitor developments in 
this area. Fortunately, there is statutory and regulatory guidance to 
assist the DOD and the USD(AT&L) in carrying out these 
responsibilities.
    Question. What standard should be applied to determine if a foreign 
acquisition threatens national security?
    Answer. There are some key factors that we must consider. First, 
how critical is the technology, whether weapons or manufacturing 
technology, possessed by the firm being acquired? Second, is this 
technology already available to potential U.S. adversaries and 
countries of concern? Third, what do intelligence assessments tell us 
about the risks of unauthorized disclosure, especially to third 
countries, of this classified or export controlled technology, based on 
what we know about both the acquiring firm and the acquiring country? 
Fourth, do we have alternative domestic suppliers of the products and 
services produced and manufacturing technology possessed by the firm to 
be acquired and how high are the costs of new entry if that was 
necessary down the road? Fifth, are we confident that the acquiring 
firm will continue whatever level of capital and R&D investments we 
think are necessary to meet DOD needs and are we confident that the new 
owner will be a reliable supplier to the DOD in terms of quality 
product or service? Sixth, does the DOD have available through the 
foreign ownership, control, or influence (FOCI) program and other 
means, enforceable measures that will adequately mitigate and risks of 
the acquisition in any of the above areas? Decisions in specific cases 
depend on the interaction of all these factors.
    Question. When a U.S. manufacturer is acquired by a foreign owner, 
there are no mechanisms in place to prevent foreign-owned companies 
from moving a U.S. manufacturing capability overseas.
    What do you plan to do to ensure that the U.S. does not lose 
critical manufacturing capabilities as a result of foreign 
acquisitions?
    Answer. There are two things which should be done regarding this 
issue. First, in each merger or acquisition transaction, we need good 
analysis on what vulnerabilities exist for national security in case of 
a move offshore involving not just manufacturing facilities, but R&D 
facilities as well. This should employ the factors I have already 
listed above. The risk of a move of production or R&D facilities 
offshore is not the same in each case. Second, we need constant 
monitoring of our defense industrial base in critical technology and 
manufacturing areas to anticipate where we think vulnerabilities exist 
so that we can take actions to help ensure that future supply is 
reliable.
    Question. What are your plans for strengthening the Defense 
Department's oversight role to ensure that U.S. national security is 
not compromised from future foreign acquisitions within U.S. 
industries?
    Answer. Actually, this oversight involves both evaluation of 
proposed transactions and working with allied governments to ensure 
that their national standards for security oversight meet our 
standards. As for individual transactions, if confirmed, I would be 
committed to seeing that we maintain good communications within the DOD 
and between the DOD and the Treasury Department CFIUS staff on 
transactions that have not had voluntary filings. I am committed to 
seeing that AT&L's particular interests in avoiding unauthorized 
transfer of controlled technology and ensuring reliable suppliers to 
the DOD in the future are given sufficient consideration in the DOD's 
CFIUS reviews.
                     foreign industrial cooperation
    Question. Do you believe that there should be greater cooperation 
and even integration between defense industries in Europe and the U.S.? 
If so, how can such cooperation be facilitated?
    Answer. I support greater transatlantic defense industrial 
cooperation. More cooperative endeavors such as teaming, joint ventures 
and even mergers and acquisitions can produce beneficial synergies, 
efficient use of limited resources, and healthy competition, so long as 
it occurs in a positive and constructive manner.
                             globalization
    Question. In a recent report on globalization, the Defense Science 
Board observed: ``The general diffusion of technological know-how and 
commercial availability of strategic or enabling technologies (advanced 
machine tools, high-performance computing, manufacturing of 
biotechnology products) will likely yield rapid advances in indigenous 
weapons production capability. States will be able to achieve dramatic 
increases in military capability by acquiring, via the burgeoning 
commercial space industry, whole ranges of C\3\ISR (command, control, 
communications, intelligence, surveillance, and reconnaissance) 
capabilities heretofore available only to great powers. The strategic 
significance of a global military-technological leveling cannot be 
overstated. It presents a direct challenge to perhaps the fundamental 
assumption underlying the modern concept of U.S. military superiority: 
that the United States enjoys disproportionately greater access to 
advanced technology than its potential adversaries.''
    Do you agree with these assessments, and if so, how do you propose 
that the U.S. maintain its military superiority in the future in light 
of these trends?
    Answer. I agree with the Defense Science Board assessments.
    The ready availability of information technology, satellite 
surveillance, weapons of mass destruction technologies, etc., and the 
trained personnel to utilize them presents a clear challenge to U.S. 
military dominance. The foes our forces may meet on the battlefields of 
the future will be more technologically adept and dangerous than they 
are today. In cooperation with State, Commerce, and others, the 
Department should continue its constructive approach to curbing the 
global proliferation of these technologies. The U.S., as the largest 
technology producer, must protect its most sensitive technologies. The 
U.S. should also continue the long-standing practice of releasing 
sensitive technologies, when warranted, to our closest allies in a 
time-phased approach, thus helping to preserve our technological lead. 
We must also work with our technologically advanced allies to improve 
their national export control practices to prevent inappropriate 
transfers of military and sensitive commercial technologies.
                         intellectual property
    Question. Many observers have said that one of the major 
disincentives for commercial companies interested in doing business 
with the Department of Defense is the difficulty of protecting their 
intellectual property under a government contract. On January 4, 2001, 
the Pentagon issued guidance to improve the Department's handling of 
intellectual property rights in order to attract commercial entities to 
defense contracts.
    Are you familiar with this guidance and, if so, what are your views 
of this revised policy?
    Answer. I believe the question is referring to a January 5, 2001, 
memorandum issued by the Principal Deputy Under Secretary of Defense 
for Acquisition, Technology, and Logistics.
    I support all of the steps outlined in this memorandum.
                         multiyear procurements
    Question. Providing a stable funding profile for defense programs 
is absolutely essential to effective program management and 
performance, for both the DOD and the defense industry. One already 
tested means of increasing program funding stability is the use of 
multiyear contracts.
    Please provide your views on multiyear procurements.
    Answer. Where appropriate, multiyear procurements can reduce the 
production cost associated with weapon systems. Multiyear contracting 
is also an effective strategy in the procurement of less than major 
systems, and in contracting for various categories of services (e.g., 
base services such as ground maintenance; specialized training 
requiring high quality instructor skills).
    Question. How will you treat proposals to renegotiate a multiyear 
procurement?
    Answer. With great caution. Multiyear procurement will remain an 
effective tool only if the parties to multiyear contracts live up to 
the long-term commitment they made. Neither industry nor Congress will 
be interested in entering into multiyear contracts unless each can rely 
on the other to follow through as planned. If circumstances change 
significantly enough to force renegotiation of a multiyear contract, I 
would expect any such recommendation to be fully supported by a 
description of what changed, why the changes necessitate renegotiation 
of the contract, how the benefits of the multiyear contract, including 
reduced cost, will be preserved to the extent possible in the 
renegotiation, and what will be done to preclude perturbing the 
contract in the future.
                         small business issues
    Question. For the last 2 decades, the Department of Defense has 
been subject to statutory goals for contracting with small businesses 
and minority small businesses. More recently, additional goals have 
been added for contracting with women-owned businesses and businesses 
owned by disabled veterans. A number of programs have been put in place 
to help the Department achieve these goals.
    Do you believe that these goals serve a valid purpose in the 
Department of Defense contracting system?
    Answer. Yes, I believe statutory goals serve to highlight 
congressional concerns which the Department of Defense is obligated to 
carry out as efficiently and effectively as possible.
    Question. Do you support the so-called ``rule of two'', which 
provides that if two or more small businesses are capable of performing 
a contract, competition will be limited to small business?
    Answer. Yes, I do support the ``rule of two.''
    Question. Do you support the Section 8(a) program under which the 
Department sets aside certain contracts for performance by small 
disadvantaged businesses?
    Answer. Yes, I do. The 8(a) program has been an important program 
in developing small disadvantaged business (SDB) firms to participate 
fully in the procurement opportunities the Department offers. It also 
allows 8(a) firms to become solid sources of supplies and services on a 
continuing basis.
    Question. Do you support the Department of Defense mentor-protege 
program, under which major defense contractors provide advice and 
assistance to small disadvantaged businesses and women-owned businesses 
seeking to do business with the Department of Defense?
    Answer. Yes, I fully support the mentor-protege program. From my 
point of view, the mentor-protege program has become one of the more 
innovative programs to develop valued suppliers for the DOD and its 
prime contractors.
    Question. Would you recommend the extension of the program?
    Answer. Yes, I would certainly recommend an extension of the 
program.
    Question. What is your view of contract ``bundling''?
    Answer. I am aware that contract bundling impacts upon small 
businesses and support the current statutory and regulatory coverage 
that requires the Department to ensure that we anticipate that there 
will be measurably substantial benefits accruing to the DOD prior to 
proceeding with a bundled action.
    Question. Do you believe that there is a value to having small 
businesses contract directly with the Federal Government, rather than 
being relegated to the role of subcontractors?
    Answer. There is value to the Department in having small business 
concerns participate in both roles, as prime contractors and as 
subcontractors. Small business concerns offer the Department and its 
prime contractors the opportunity to access the innovation, 
competitiveness, and responsiveness that have always been the hallmark 
of U.S. small business concerns. Small business concerns play a 
substantial and important role in the Defense industrial base and we 
should continue to support them in both prime and subcontracting roles.
    Question. Do you believe that the standard adopted by Congress for 
approving bundling is the appropriate one, or would you recommend that 
this standard be modified?
    Answer. If confirmed, I will review this matter carefully and work 
the Secretary and this committee to ascertain if the Department should 
recommend any modifications.
                             feeder systems
    Question. For years, the Department of Defense has been unable to 
ensure proper accountability and control over its physical assets, 
proper accounting for the costs of operations, and proper recording and 
reconciling of disbursements. In the view of many, the Department will 
not be able to get its financial house in order until it has identified 
and addressed problems with the so-called ``feeder systems'' that 
provide much of the information used by the Department's finance and 
accounting systems. These ``feeder systems'' include procurement and 
acquisition systems under the control of the Under Secretary for 
Acquisition, Technology, and Logistics.
    Do you agree that it must be a high priority for the Department of 
Defense to develop systems that can properly account for costs and 
disbursements?
    Answer. Yes. Developing DOD systems that properly account for the 
costs of DOD operations and acquisitions is a high priority and 
critically important to sound decision-making.
    Question. Would you make it a high priority to work with the DOD 
Comptroller, the Chief Information Officer, and the military services 
to ensure that the Department's acquisition systems include appropriate 
management controls and provide reliable data that can be used for both 
acquisition management and financial management purposes?
    Answer. Yes.
                       defense acquisition board
    Question. There are a number of decisions which will require a 
Defense Acquisition Board (DAB) review in the next 6 months.
    Do you foresee any near- or long-term changes in the membership or 
procedures for DAB reviews?
    Answer. If confirmed, I intend to review the membership and 
procedures of the DAB as part of my broader review of acquisition 
organizations and processes.
                     privatized housing initiatives
    Question. Under the current Department of Defense organization, the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
is responsible for military housing policies and the privatization 
initiatives.
    a. In your opinion, are the current initiatives sufficient to 
address the problems with aging and substandard military housing?
    b. What changes or new initiatives, either policy-based or 
statutorily, would you recommend to improve the efficiency and 
effectiveness of the housing privatization program?
    Answer. The authorities included in the Military Housing 
Privatization Initiative enacted in 1996 are critical to revitalizing 
inadequate military housing and to help satisfy overall housing 
requirements. The Department of Defense has established the goal of 
revitalizing all inadequate housing in its inventory by 2010. 
Privatization is an important element of the strategy that will allow 
the Department to meet this important quality-of-life goal.
    If confirmed, I will review the program to determine the lessons 
learned from the 10 projects already awarded, and to disseminate 
information about the most cost-effective ways to use the authorities 
in the wide variety of conditions encountered at different locations.
                             transformation
    Question. Over the last year, the military departments have 
described or initiated plans to transform so that they will be better 
able to deal with a wide range of anticipated 21st century national 
security challenges.
    What are your views of the transformation initiatives within the 
Department as they are currently understood?
    Answer. Already, the military departments have taken actions to 
transform themselves to be more adaptive, flexible, and suited to the 
spectrum of future warfighting challenges. These efforts are essential 
to maintaining future military relevance and superiority.
    Question. Are you concerned that these initiatives appear to be 
``self-defined'' by the services without direct participation of the 
Secretary of Defense or the Chairman, Joint Chiefs of Staff?
    Answer. The Secretary has embarked on a study to determine the most 
appropriate next steps in the transformation process. As I understand 
it, as with his other ongoing studies, his transformation review has 
included input from the services and independent assessments from 
others.
    Question. Recognizing that a fundamental change of the military 
services will be expensive and understanding that ``legacy'' 
modernization programs were significantly underfunded before these 
transformation initiatives began, what would you do to ensure that a 
proper balance of resources is maintained between the two efforts?
    Answer. The balance of resource investments between transformation 
initiatives and so-called ``legacy'' modernization programs will always 
be a difficult one, since we must take all these decisions under 
considerable uncertainty about the future. Many of the legacy systems 
will be with us for a long time into that future, and during that time 
will continue to be essential to our warfighting readiness. We need to 
take prudent steps to sustain and upgrade them to be more useful for 
the widest range of schemes for modern warfare. It is also important to 
work to reduce the ownership costs for these systems, since these costs 
have historically eroded our ability to adequately support investment 
in future systems. Likewise, we must look very carefully at investments 
in new systems intended for replacement of the legacy forces.
                            cost estimating
    Question. As programs move forward to critical decision points, 
there often seems to be a wide disparity between the cost estimates 
provided by service analysts and those of the Cost Advisory Improvement 
Group (OSD-CAIG). If confirmed, you will be the Milestone Decision 
Authority when a program requests a decision at a Defense Acquisition 
Board.
    How do you intend to handle the issue of projected costs when the 
estimates may widely differ?
    Answer. If confirmed, I intend to rely on the independent estimate 
provided by the CAIG to assess the service's projected cost for the 
program. I will ensure that the reasons for differences between the 
service estimate and the CAIG estimate are understood prior to making a 
decision at a Defense Acquisition Board.
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense for Acquisition, Technology, and 
Logistics?
    Answer. There are many challenges that confront me, if confirmed, 
and they run the full spectrum of my prospective responsibilities:

        <bullet> Reviewing the Department's Acquisition, Technology, 
        and Logistics organizations and processes with an eye towards 
        achieving greater availability and efficiency.
        <bullet> Improving the quality of the acquisition workforce and 
        implementing programs to maintain a viable workforce in the 
        face of significant challenges over the next decade.
        <bullet> Improving the health of the defense industrial base.
        <bullet> Determining the appropriate level of resources for 
        infrastructure, and considering what is appropriate when 
        rationalized against the needs of military strategy, readiness, 
        and weapons system investment and sustainment.
        <bullet> Fostering leap-ahead technologies, which could alter 
        the strategic balance.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. There are no quick, easy solutions to resolve these 
challenges. If confirmed, I plan to establish definitive goals and 
metrics to address these challenges and implement comprehensive 
programs that will achieve progress in each of these goals.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Acquisition, Technology, and Logistics?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                        military specifications
    1. Senator Thurmond. Although military hardware must meet certain 
specifications to survive in combat conditions, much of the equipment 
does not have to meet these standards. I understand that these military 
standards drastically increase the cost of development and procurement. 
In your view, is the Department of Defense relying too much on military 
specifications when commercial off-the-shelf items could fulfill the 
requirements?
    Mr. Aldridge. Yes, I believe the Department of Defense has made 
significant progress in reducing its reliance on unique military 
specifications; however, more can and must be done. Since 1994, the 
Department has canceledd 9,600 military specifications and standards 
and inactivated another 8,100, which are to be used only to support 
legacy systems and equipment. Today, 53 percent of the specifications 
and standards used by the DOD are either non-government standards 
prepared by private sector standards developing organizations or are 
commercial item descriptions; however, the DOD still relies on 7,900 
unique military standards and specifications. Current DOD actions are 
directed toward greater use of commercial standards on legacy parts 
through single process initiatives and reprocurement reform, which has 
been included in the recent update to DODD 5000.1. If confirmed, I will 
continue to support the maximum use of commercial and international 
standards and commercial items where appropriate.

                            global hawk uav
    2. Senator Thurmond. Last week the Global Hawk UAV demonstrated its 
capability to fly nonstop to Australia. This was a dramatic 
demonstration of the potential the UAV has to provide a vast array of 
capabilities ranging from reconnaissance to weapons carriers. What are 
your views regarding the potential of these vehicles and is the 
Department pursuing this technology to its full potential?
    Mr. Aldridge. The Global Hawk UAV does indeed bring a most 
promising capability to future military operations. As you have pointed 
out, the Global Hawk holds great potential in mission areas beyond the 
traditional reconnaissance role.
    The Department is focusing on the reconnaissance mission first for 
Global Hawk, as this is the logical role. We envision Global Hawk will 
become the ``workhorse'' for missions requiring long-range deployment 
and wide-area surveillance or long sensor dwell over the target area. 
If Global Hawk demonstrates equivalent capability and availability with 
the U-2 program, the Air Force will consider drawing down the U-2 force 
as Global Hawk is fielded. Our current objective is for Global Hawk to 
achieve equivalent capabilities with the U-2 at the end of this decade. 
However, the Department is currently looking at several acceleration 
options, in terms of production rate, payload capacity, and mission 
capabilities, which could move this timetable forward.
    The high altitude endurance Global Hawk has the potential to bring 
a new dimension of support to the warfighter. The Department is 
posturing itself to field this new UAV capability in the very near 
future. We are also assessing future payloads, for other mission areas, 
as they mature to determine their suitability and applicability for 
integration onto the Global Hawk UAV.

                         installation readiness
    3. Senator Thurmond. If you are confirmed as the Under Secretary of 
Defense for Acquisition and Technology, you not only will have the 
responsibility for overseeing the modernization of our Armed Forces, 
but also its installations. Although the modernization piece of your 
job will present challenges, our installations may be a bigger 
challenge. Last year the Department found that 60 percent of military 
bases have facilities rated C-3 or C-4 for readiness, which indicates 
the potential for not being able to carry out a mission. How do you 
intend to prioritize the issue of installation readiness?
    Mr. Aldridge. As your question implies, the Department's 
installations play a critical role in supporting our Armed Forces in 
the conduct of their wartime missions. Unfortunately, the Installation 
Readiness Report as of the end of fiscal year 2000 indicated that now 
69 percent of all ratings are either C-3 or C-4.
    If confirmed, I will endeavor to ensure the Department gives high 
priority to improving the condition and readiness of defense 
facilities. I believe we must accelerate the recapitalization of those 
facilities with deficiencies that may prevent or interrupt the mission, 
those facilities rated C-3 or C-4. Further, I believe the Department 
must fully sustain its facilities, restore and modernize inadequate 
ones, and eliminate facilities we no longer need. To enhance the 
stewardship of our facilities, I will work with the military services 
and defense agencies on directing additional resources into fixing the 
facilities' problems so that the Department has the installations and 
facilities available when and where needed, with capabilities to 
effectively and efficiently support DOD missions. Quality of life and 
workplaces for our servicemembers and their families is critical to 
readiness and retention, and I will work to ensure our military 
installations support our forces and their missions.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                            berry amendment
    4. Senator Sessions. I am sure you are aware of the fiasco 
surrounding the purchase of the black berets and its relation to the 
Berry amendment. The Berry amendment in this case was circumvented when 
an artificially short deadline was set to procure these berets. This 
deadline prevented many American companies from bidding on this multi-
million dollar purchase, and therefore allowed the manufacture of these 
berets to move overseas to countries such as Communist China and Sri 
Lanka. What is your position on the Berry amendment, and what will you 
do in your position to ensure the spirit of ``Buy American'' in the 
Berry amendment is honored in the future?
    Mr. Aldridge. I support the central requirements of the Berry 
amendment. The Department is considering proposing modifications to the 
Berry amendment to clarify the amendment and to make it easier for the 
Department's suppliers to comply with the amendment.


                ship procurement and industry stability
    5. Senator Sessions. In my position as Chairman of the Seapower 
Subcommittee of the Senate Armed Services Committee, I recently chaired 
a hearing with representatives of the American shipbuilding industry 
and the overwhelming refrain I heard from these gentlemen is that their 
industry needs stability and predictability in the procurement and 
contracting of military ships. Many ideas have been floated on how to 
achieve this and associated cost savings. I want to hear from you what 
you feel is the best way to procure ships and ensure cost savings to 
the American taxpayer and stability to industry?
    Mr. Aldridge. Shipbuilders can build ships more efficiently, 
optimizing the scheduling of their facilities and resources involved in 
the construction of ships if they have a known backlog of reliable 
business. The Navy can provide such stability, and the taxpayer can 
benefit from the resulting lower costs, when Congress authorized 
multiyear procurements and provides advance procurement funding to 
enable Economic Order Quantity purchasing of components and subsystems.
    The Department has used multiyear procurement successfully in the 
past 20 years to reduce defense system production cost. Multiyear 
procurement is a very useful acquisition strategy when a program has 
achieved stability. Statute establishes that the prerequisites to using 
a multiyear contract include stable requirements, a stable design for 
the product being procured, technical risks low enough to make 
realistic estimates of the cost of the contract, and anticipated cost 
avoidance through the use of a multiyear contract. Statute also 
requires there to be sufficient agency commitment to the program to 
expect the agency head to request funding for the multiyear contract at 
the level required to avoid contract cancellation. Where these 
circumstance exist, I will strongly encourage the use of multiyear 
contracts to reduce the production cost associated with weapon systems, 
including ships.
    Permitting the Department to budget to only a limited portion of 
the aggregate cancellation ceilings in the Shipbuilding and Conversion, 
Navy, accounts, would allow management of risk at the aggregate level 
without straining budgets unduly. Effective use of these techniques 
requires discipline on the part of both the executive and legislative 
branches, to agree upon a plan and stick with it for several years at a 
time. The benefits include better prices for the taxpayer, more 
stability for the companies and their employees, and less turmoil all 
around.


                navy ship fleet size and industry health
    6. Senator Sessions. Currently the Navy states it has a need for at 
least a ``300-plus'' ship fleet. Yet, during the past administration 
our ship building rates were such as to generate a 220-ship fleet. 
Obviously there are severe ramifications to this trend. Industry told 
me that they currently have the capability to build to a 300-plus-ship 
fleet, but will shed this overhead soon if it appears that we will 
continue on the trend to a 220-ship Navy. This worries me. We as a 
nation cannot afford to lose this industrial capability. Do you have an 
idea as to what size of fleet is adequate and what plans do you have to 
keep our warship building industry healthy?
    Mr. Aldridge. The Secretary of Defense submitted a 30-Year 
Shipbuilding Plan Report to Congress in June 2000, which provided the 
required shipbuilding procurement rate and ship mix to sustain the 
present fleet size. Long-term procurement rates of 8-10 ships per year 
are needed to sustain the current fleet size and meet the force 
structure requirements. Continuing to procure six ships per year as 
reflected in the fiscal year 2002 budget will have three negative 
effects. First, it will create a ``bow wave'' of future-shipbuilding 
procurement requirements, for which it will be increasingly difficult 
to allocate scarce procurement account resources. Second, it will 
create additional stress on fleet maintenance budgets to sustain the 
service lives of aging and increasingly obsolescent ships to maintain 
force structure. Third, the lower shipbuilding rates of this year's 
budget and the increased shipbuilding rates in future years will create 
a layoff-hiring cycle within the shipbuilding industry, which will 
result in increased cost to the Government for future ship 
construction. This will exacerbate the previously mentioned procurement 
and maintenance affordability problem and causes further stress to the 
``top line'' of future Navy budgets.
    Our shipbuilding plan is barely adequate to sustain the remaining 
Naval shipbuilding industrial base including the suppliers that provide 
supporting equipment and associated engineering services. Our plan 
provides the best available balance between the Department's 
requirements and available resources. The innovative teaming strategy 
approved by Congress for the construction of four Virginia Class 
submarines, advance procurement for the fiscal year 2002 and fiscal 
year 2003 Virginia Class submarines, and the next DDG 51 multiyear 
procurement contract, all highlight acquisition strategies aimed at 
lowering costs, reducing disruptions from hiring and layoff cycles, 
while maintaining level employment, and encouraging capital 
investments. Our shipbuilding plan maintains both the LPD 17 and the 
Auxiliary Dry Cargo Vessel (T-AKE) programs that, in spite of recent 
adjustments in annual acquisition quantities, will help the auxiliary 
vessel manufacturers capitalize on past and current program 
efficiencies. These actions constitute the Navy's near term effort to 
ensure the long-term ability of the shipbuilding industry to support 
our future construction programs.
    As noted in the November 2000 Report to Congress submitted by the 
Secretary of the Navy updating the 1993 Arleigh Burke Destroyer 
Industrial Base Study, both of the destroyer shipbuilders will have to 
book unprecedented amounts of additional, non-U.S. Navy work in order 
to maintain their workforces during the transition from DDG 51 to DD(X) 
production. This assessment was based on the shipbuilding profile 
presented in the fiscal year 2001 budget submission. However, the 
cumulative effect of actions taken in the fiscal year 2002 budget 
request including the acceleration of the 58th DDG 51 Class ship to 
fiscal year 2002, coupled with congressional action on the LPD 17 
program in fiscal year 2001 and the Navy's action in the President's 
Budget for Fiscal Year 2002, make the industrial base forecast even 
more challenging than that reflected in the November 2000 report. The 
acceleration of the 58th DDG 51 Class ship to fiscal year 2002 sustains 
the surface combatant industrial base in the near term but exacerbates 
the industrial base situation, documented by the report, between the 
end of DDG 51 production and the beginning of DD(X) production. This 
situation demands closer attention. I also note that the risks of the 
destroyer production transition are not confined to the shipbuilding 
industrial base. Second tier suppliers of shipboard equipment used on 
destroyers and other warships also will be affected to varying degrees. 
Possible effects could be higher unit costs for associated equipment 
for other Navy shipbuilding programs or a corporate decision to scale 
back or stop production. Neither of these consequences is in the best 
interest of the Navy or the country.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                            missile defense
    7. Senator Collins. What are your views on a realistic time frame 
for research and development and eventual deployment of theater and 
national missile defenses? What do you see as the pros and cons for 
missile interceptors, which are land-, sea-, or even space-based?
    Mr. Aldridge. Historically, a weapon system of the scale and 
complexity of missile defense spends many years in research and 
development. In the case of missile defenses, our development process 
uses a disciplined approach to ensure that our response incorporates 
technologies to meet the challenges of a constantly evolving threat at 
an acceptable risk level. Although we have made significant progress in 
demonstrating the technologies that enable hit-to-kill performance, 
this leads to numerous challenges that can extend the time for research 
and development.
    The Secretary continues to review the Department's ballistic 
missile defense architecture. As the President said in his speech of 
May 1, 2001, this review will ``examine all available technologies and 
basing modes for effective missile defenses that could protect the 
United States.'' This review is considering numerous options for basing 
interceptors (land, sea, and/or space) and will identify more specific 
deployment schedules. I expect that the Secretary will share the 
results of that review with you when it is complete.

         military use of space and critical space technologies
    8. Senator Collins. I understand that improving military space 
systems and military use of space will be high priorities for defense 
over the next several years. Space control and space-based strike 
capability research and development programs--like the spaceplane, 
Clementine 2, and KEASAT--were proposed to develop and demonstrate 
technologies needed to protect our space assets and transform our own 
deep strike capability through space. Do you support these programs and 
do you have plans to expand research on technologies critical to space 
operations?
    Mr. Aldridge. Yes, I support expanded research on technologies that 
are critical to space operations. The Department has recently concluded 
a broad area review in the area of space control in order to provide 
guidance to the services on technology investments in this mission 
area. Critical areas identified through this review and other recently 
completed studies identified responsive launch, space-based operations/
logistics, miniaturization, space-based space surveillance, and 
temporary/reversible counter space-based communications and electro-
optical systems as areas that may benefit from additional resources.
    The Department continues to work closely with the National 
Aeronautics and Space Administration (NASA) on the development and 
demonstration of reusable launch vehicle technology that could support 
the future development of a military spaceplane. The Department is 
currently performing a requirement review and military utility analysis 
for the recently canceled X-33 and X-34 technology demonstration 
programs. The results from these reviews will define the efforts the 
Department supports for near-term investment.
    In fiscal year 1998 the Department of Defense restructured the 
Clementine 2 program to incorporate it within the existing micro-
satellite technology program. In cooperation with other government 
organizations, the micro-satellite technology development program will 
focus on pervasive technologies for miniaturization and micro-
satellites such as: multifunctional structures for affordability and 
flexibility, lightweight power generation, and storage; advanced 
processors; high precision, high efficiency thrusters, autonomous 
reconfiguration; and open architecture satellites with standard 
interfaces. These technologies will be developed, packaged, and 
demonstrated for their utility in future missions such as inspection, 
surveillance, and remote servicing operations.
    The Kinetic Energy Anti-Satellite (KEASAT) technology demonstration 
has been solely funded since 1993 through congressionally directed 
funds. The effort is currently developing three kill vehicles through 
flight qualified status, scheduled to be complete in fiscal year 2002. 
The Department currently places a higher emphasis on temporary/
reversible space negation systems, but will complete the technology 
demonstration of the KEASAT kill vehicles to a status of flight 
qualified, with the capability to conduct a flight test within 1 year 
of a decision to do so.

              r&d priorities to transform military forces
    9. Senator Collins. The Pentagon's budget blueprint proposes an 
additional $2.6 billion for research and development and missile 
defense. Without pre-empting the strategic review and budget to be 
issued in the upcoming month(s), what are some of your priorities for 
R&D initiatives to transform our military forces?
    Mr. Aldridge. I intend to increase the development of our ballistic 
missile defense program. Part of this increase will go toward the space 
component. Another part will be to continue development of existing 
ground-based systems. We also need to continue to strive to balance 
technology development to support a wide range of potential operational 
capabilities.
    To accomplish this, funding increases are necessary. The 
Department's R&D initiative will also include an increase in investment 
for basic research and Defense Advanced Research Projects Agency. Also, 
our strategic initiatives will focus on new capabilities like target 
defeat, urban terrain operations, network centric warfare, space, 
autonomous unmanned systems, advanced power, nanotechnology, and 
directed energy. This will increase our lethality, survivability, 
maneuverability, and supportability for the future military force.

         european union ``galileo'' satellite navigation system
    10. Senator Collins. The European Union is unilaterally putting 
hundreds of millions of dollars into their ``Galileo'' satellite 
navigation system in order to compete with the United States' highly 
successful Global Positioning System (GPS). Do you think that we can 
reach common ground with the Europeans, our NATO partners, to modernize 
a single satellite navigation system based on GPS? Do you believe that 
this is now in the best interest of the United States to do so?
    Mr. Aldridge. The April 2001 European Union Transport Ministry 
approval of a Galileo program report indicates a continuing commitment 
to pursing the development of the civil-based Galileo system. 
Consultations with the European Union on possible cooperation 
opportunities between GPS and Galileo are being lead by the Department 
of State. However, I do not believe the Europeans will be able to 
acquire a civil-based capability as wide-ranging as GPS for anywhere 
near the amount of money they state the Galileo system will cost (3.2 
billion euros or $2.75 billion).
    From a military perspective, NATO remains committed to using 
military GPS services and the DOD continues to work within NATO to 
ensure that modernized GPS services satisfy mutual military 
requirements. The U.S. is modernizing GPS to provide enhanced 
capabilities for both civil and military users. One of the challenges 
for the U.S. and our allies is to develop capabilities to deny civil 
satellite navigation services during times of crisis and thereby avoid 
having those services misused against U.S. and allied military forces. 
Although the European Union's (EU) initiative to develop Galileo is 
advertised as providing civil only services, there are clear benefits 
to be gained in reaching common ground on how these civil Galileo 
services will be implemented. For this reason, continuing dialogue with 
the EU is in the best interest of the U.S.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                        network centric warfare
    11. Senator Lieberman. Given the significant potential of network 
centric warfare to exploit the power of information and information 
technology to achieve battlefield dominance, how do you plan to: direct 
requirements generation and acquisition such that the Armed Forces will 
be able to realize a truly network-centric force; carry out a joint 
experimentation program to develop new operational concepts which take 
full advantage of the advances in network-centric capabilities; and 
ensure that OSD and the services place the requisite priority on 
development of the associated technologies?
    Mr. Aldridge. While I believe that the coupling between the 
requirements generation process and acquisition process is more robust 
now than ever before, I will continue to support enhancements of their 
relationship as well as the improvement of each process. The present 
DOD course is a good one. The DOD major systems acquisition directive 
5000 and the JS requirements generation process directive, 3170, were 
generated hand-in-glove. These are the governing regulations for 
systems acquisition. Additionally, the Vice Chairman of the JCS sits on 
the Defense Acquisition Board as it reviews programs. One of the 
requirements by both directives is the interoperability of systems, 
expressed as a program key performance parameter and reflected in the 
operational requirements documents of major programs. Within 
interoperability are contained the requirements for each system to 
comply to various DOD-wide architectures that directly enhance network-
centric warfare performance affecting all our services and allies.
    As you may be aware, the DOD has in place a number of activities 
that deal with experimentation of new ideas and joint matters. These 
include joint warfighting experiments, joint test and evaluation to 
develop training tactics and procedures, advanced concept technology 
demonstrations (ACTDs), and so on. An example of these is the ACTD 
called Coalition Aerial Surveillance and Reconnaissance (CAESAR), which 
provides interoperability of ground moving target indicator assets of 
the U.S. and seven of our allies and will be demonstrated via NATO 
military exercises. Another example is the Network-Centric 
Collaborative Targeting (NCCT) ACTD. NCCT includes numerous sensor 
types and is developing and applying network-centric techniques, 
collaborative concepts, and front-end processing to multi-service 
intelligence, surveillance, and reconnaissance assets to provide 
target-quality information on time-critical targets. From the results 
of this and other similar demonstrations and experiments, the 
Department will gain residual capabilities and valuable experience that 
will help us execute programs and similar initiatives.
    One of the initiatives I will undertake is to increase the emphasis 
on our defense technology base. I also plan to monitor the progress we 
make on our tech base activity via the various tools that will be 
available to me. One of these tools is the Department's S&T reliance 
process, which includes the conduct of technology area review and 
assessments. These assessments involve panels composed of members from 
the DOD, academia, and industry. They are chartered to review various 
technology areas, such as information systems technology. 
Recommendations from these panels are presented to senior Defense 
officials, including the top service science and technology 
representatives. They in turn take appropriate action (i.e., enforce 
adjustments to investments) to ensure the services and agencies place 
the requisite priority on the development of associated technologies 
that support the concept of network-centric warfare. In addition to 
defense-unique technology, we need to leverage the commercial sector 
technology. The commercial sector offers great opportunities in 
information and communication technologies, which are in the heart of 
network-centric warfare. We can take advantage of these sectors to get 
better results faster and less costly.

                        interoperability issues
    12. Senator Lieberman. Would you find it advisable that any program 
which deals with interoperability issues (communications, sensors, 
logistics) be handled through the Joint Requirements Oversight 
Committee?
    Mr. Aldridge. All programs that have Interoperability Key 
Performance Parameters (KPPs) must be certified by the J-6 per CJCSI 
6212.01B ``Interoperability and Supportability of National Security 
Systems, and Information Technology Systems,'' dated 8 May 2000 and/or 
CJCSI 370.01B ``Requirements Generation System,'' dated 15 April 2001. 
CJCSI 6212.01B Enclosure A, Paragraph A, specifies J-6 will ``Conduct 
an interoperability requirements certification of Mission Need 
Statement (MNS), Capstone Requirements Document (CRD) and Operational 
Requirements Document (ORD), regardless of Acquisition Category (ACAT) 
level.'' CJCSI 3170.01B Enclosure B-4, Paragraph 4A, states that all 
``Unresolved interoperability issues will be forwarded by the J-6 to 
the Military Communications Electronics Board (MCEB) for resolution. 
The MCEB will ensure that unresolved issues resulting from 
interoperability assessments are presented to the Joint Requirements 
Oversight Council (JROC) for resolution.'' Currently, the JROC oversees 
the interoperability aspects of all ACAT I and special oversight 
programs. Additionally, the chairman of the JROC is a member of the 
Defense Acquisition Board (DAB). Expanding the scope of JROC programs 
to include all programs that deal with interoperability is not 
advisable, due to practical limitations of the council's time and 
attention. The current practice of J-6 interoperability certifications 
for all programs, regardless of ACAT and jointness and the added 
oversight of the MCEB, is seen as an adequate process at this time.

                     revitalizing dod laboratories
    13. Senator Lieberman. In the past several years, we have been 
particularly concerned about personnel and management issues in DARPA 
and the service laboratories. We have worked hard to provide 
legislative relief in the form of several innovation provisions aimed 
specifically at improving the ability to recruit and retain high-
quality personnel. These provisions include both the pilot program for 
revitalizing DOD laboratories and civilian personnel provisions (fiscal 
year 1999 Section 246, fiscal year 2000 Section 245), and a provision 
to expand the experimental civilian personnel program (fiscal year 2001 
Sections 1113 and 1114). How do you intend to implement these 
provisions and are there other ideas you have regarding strategies to 
revitalize the laboratories? With cooperation from Congress, do you 
feel that you can make noteworthy progress towards revitalizing the 
labs through incremental improvements such as the ones previously 
mentioned, or do you foresee the need for a major reform of the civil 
service?
    Mr. Aldridge. As we put the administration's defense team in place, 
revitalization of the defense labs and workforce is a priority 
discussion and action area for us. Implementation activities have begun 
in earnest for each of the authorities granted through the various 
public law provisions. Throughout the implementation process we will 
keep an eye toward discovering and defining areas that can benefit from 
continued interaction with and cooperation of Congress. As a select 
example of progress, our pilot lab in the Air Force has successfully 
initiated a scholars program and a distinguished space industry fellows 
program to infuse new ideas and enthusiasm to their mission area and 
workforce. DARPA is aggressively seeking new employees using the 
special hiring authority under Sections 1102 and 1113. As we go 
forward, I am confident that we will make progress in lab 
revitalization. I do not foresee, at present, a need for a major civil 
service reform to accomplish the revitalization. But, I will be 
attentive to this issue and will seek assistance if current civil 
service law becomes an insurmountable barrier to defense lab 
revitalization.

                             s&t leadership
    14. Senator Lieberman. Particularly given the trends towards 
transformation and the implementation of network-centric warfare, it is 
my opinion that we need very strong leadership in S&T both in the 
services and in OSD. How do you plan to ensure the voice of the S&T 
leadership is prevalent in the highest levels of the DOD? Will you hold 
formal briefings to the Secretary or the Joint Chiefs on both S&T and 
T&E programs? Also, at what point should we anticipate the appointment 
of key S&T personnel including the DARPA Director, Deputy Director of 
Research and Engineering, and DUSD S&T?
    Mr. Aldridge. I agree that the Department needs strong leadership 
in S&T in both the services and the Office of the Secretary of Defense. 
I intend to be the strong voice for S&T within the Department, and am 
establishing a management structure to ensure the visibility of 
technology throughout the Department. On 30 May, the President 
announced the nomination of Michael Wynne to be the Principal Deputy 
Under Secretary of Defense for Acquisition and Technology. We are also 
working to quickly announce other key technology leaders in the new 
administration. The process of selecting and nominating individuals to 
key positions is a long process. We have named individuals for the 
positions above the DDR&E, DARPA Director, and DUSD(S&T), so nomination 
of people for the critical technology oversight positions is imminent. 
Finally, I do not intend to hold formal periodic briefings to the 
Secretary and Service Chiefs on both the S&T and T&E programs, but 
instead, pledge to make S&T a critical recurring element of the DOD 
acquisition program.

                            missile defense
    15. Senator Lieberman. The administration has emphasized the 
commitment to Defense R&D, and has included $2.6 billion of additional 
R&D funding for fiscal year 2002. How much of this increase do you 
anticipate will go towards supporting R&D for National Missile Defense? 
Of that amount, will it be used strictly for R&D or do you anticipate 
that a portion will be directed towards T&E in BMDO?
    Mr. Aldridge. The Secretary continues to review the Department's 
ballistic missile defense architecture. This review will revise the 
Department's budget request for fiscal year 2002. We have not yet 
decided how much of fiscal year 2002 increase will be allocated toward 
R&D. As soon as we have completed those deliberations we will share the 
results with you.

                      darpa transition strategies
    16. Senator Lieberman. Although DARPA has long been recognized as a 
major leader in developing revolutionary military technologies, there 
has been some concern lately that, due to the lack of an effective 
transition mechanism, many of these promising technologies are not 
fully leveraged in the services. How do you intend to address these 
concerns?
    Mr. Aldridge. While there is little empirical evidence available by 
which to judge transition performance, it is clear that transition is a 
formidable challenge. Few would argue that it is not something the DOD 
could do better. Although this challenge is naturally exacerbated for 
DARPA because of its mission of high-risk, high-payoff research and its 
position outside the services, I feel that it is crucial that DARPA 
stay focused on revolutionary technology.
    DARPA requires a broad array of transition strategies to match the 
diversity of the technology it develops. It has recently begun 
implementing three thrusts to improve these strategies. The first is to 
build on what we know works, such as jointly funding programs with the 
services and establishing joint DARPA-service program offices. The 
second is to better understand how DARPA technologies have transitioned 
in the past, so that those lessons may be reapplied. The third is to 
actively explore other transition initiatives around the DOD, such as 
those of the Navy's Chief Technology Officer and Advanced Concept 
Technology Demonstrations, to see if they can provide additional 
pathways for DARPA technology.
    DARPA is working carefully to augment its transition strategies 
while not diluting the Agency's critical focus on revolutionary 
technology. As Under Secretary, I intend to continue a high level of 
attention to DARPA's revolutionary technology development as well as to 
its technology transition efforts.

                 dod's highest priority research areas
    17. Senator Lieberman. In the Fiscal Year 2000 National Defense 
Authorization Act, Section 241, Congress requested a report on emerging 
operational concepts and technological objectives for research and 
development. We hoped this report would elucidate the DOD's priorities 
and serve as a roadmap in establishing current research investment 
strategy. Either reflecting the results of this report or from your own 
perspective, could you briefly summarize the DOD's highest priority 
research areas?
    Mr. Aldridge. A significant focus of the Department's S&T program 
should be prioritized around research areas that best support our 
strategy for the future military. These high priority research areas 
include: nanoscience; advanced materials; directed energy; advanced 
power; and human-centered systems research that can aid in decision-
making under stress, provide more realistic training, and optimize 
human-information interfaces and performance. These foci are in 
addition to science and technology for existing ``hard problems'' 
facing the Department which include: time critical targets; chemical 
and biological weapons defense; cruise and ballistic missile defense; 
and military operations in urban terrain. Finally, the Department is in 
the process of identifying additional research areas with the potential 
for revolutionary payoff. These areas include: fuller dominance of 
space; autonomous uninhabited vehicles; and network-centric warfare.


    18. Senator Lieberman. If confirmed, you will be responsible for a 
large spectrum of defense issues. How do you propose to manage this 
office given the disparate areas of responsibility?
    Mr. Aldridge. First, I plan to establish five new goals to more 
effectively and efficiently address the large spectrum of defense 
issues. The five new goals are: (1) achieve credibility and 
effectiveness in the acquisition and logistics support process; (2) 
revitalize the quality and morale of the DOD acquisition, technology, 
and logistics workforce; (3) improve the health of the defense 
industrial base; (4) rationalize the weapon systems and infrastructure 
with defense strategy; and (5) initiate high leverage technologies to 
create the warfighting capabilities, systems, and strategies of the 
future.
    I plan to achieve these goals through such initiatives as: 
increasing the empowerment of the workforce; establishing a metrics 
system to measure progress toward the attainment of these goals; 
reorganizing the acquisition, technology, and logistics organization 
along functional lines to more effectively address the issues and to 
facilitate accurate and timely decision-making; providing full funding 
for the programs--to the greatest extent possible--in concert with 
adhering to more realistic cost estimates and establishing prudent 
management/risk reserves; and working closely with Congress to restore 
credibility to the entire acquisition and logistics process.
    In sum, I plan to lead the acquisition, technology, and logistics 
organization into a new era of ``acquisition excellence'' by changing 
the environment, reducing cycle time, improving the process, linking 
human resources, and monitoring progress with metrics.

                              a-76 process
    19. Senator Lieberman. The A-76 process is perceived as a very 
bureaucratic system without the expected savings. Do you have any 
thoughts about the process and what improvements would you pursue?
    Mr. Aldridge. While I agree that the process is very complex and 
lengthy, I must disagree with any characterization that it does not 
provide savings. The worst that can be said is that we need to improve 
the accuracy of our measurements of savings. Numerous independent 
reviews have validated that we are reaping very real savings.
    A-76 competitions, although complex and contentious, do provide a 
proven method for managers to determine the most cost-effective 
operation of commercial functions through public/private competition.
    I am hopeful that through participation in the Commercial 
Activities Panel chaired by the Comptroller General, we will realize 
significant improvements and recommend elimination of obstacles that 
unduly burden our processes and efforts to become more cost-effective.
                                 ______
                                 
              Question Submitted by Senator Jean Carnahan
    20. Senator Carnahan. I am advised that the National Imagery and 
Mapping Agency (NIMA) has proposed that work performed by 600 Federal 
employees at installations in Missouri and Maryland be directly 
converted to contractor performance without a public-private 
competition under OMB Circular A-76. Public-private competitions serve 
the dual purposes of ensuring that the government obtains the lowest 
price available for services and providing skilled Federal employees 
the opportunity to compete to keep their jobs.
    What is the justification for converting these jobs to the private 
sector through a sole source award without any competitive bidding of 
any sort, let alone a public-private competition? What are the cost 
savings to NIMA that would be achieved by the direct conversion? How 
can these cost savings be determined without a public-private 
competition?
    Do you believe the Office of the Secretary of Defense should 
provide oversight over direct conversions such as the one proposed by 
NIMA?
    Mr. Aldridge. NIMA is considering contracting with an Alaska Native 
Corporation, under the Small Business Administration's 8(a) program, 
for certain information technology and information services functions. 
Such a direct conversion is consistent with OMB Circular A-76 and 
section 8014 of the 2001 Department of Defense Appropriations Act, 
Public Law 106-259. While NIMA estimates manpower reductions of 20 
percent phased in through the life of the contract, no conversion will 
be undertaken for these functions unless efficiencies and savings will 
result. NIMA also anticipates that this conversion can be made with no 
reduction in force or other involuntary personnel action. OSD oversees 
outsourcing decisions for compliance with applicable policy.
                                 ______
                                 
    [The nomination reference of Edward C. Aldridge follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 23, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Edward C. Aldridge, of Virginia, to be Under Secretary of Defense 
for Acquisition and Technology, vice Jacques Gansler.
                                 ______
                                 
    [The biographical sketch of Edward C. Aldridge, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Edward C. Aldridge
    The Honorable E.C. ``Pete'' Aldridge, Jr., is currently Chief 
Executive Officer of The Aerospace Corporation, an independent, 
nonprofit organization dedicated to solving critical national problems 
through science and technology. He came to Aerospace from McDonnell 
Douglas Electronic Systems Company, where he served as President from 
1988 to 1992. In June 1986, he was confirmed as the 16th Secretary of 
the United States Air Force, a department he led until 1988.
    Edward C. Aldridge was born in Houston in 1938 and spent his youth 
in Shreveport, LA. He received a bachelor of science degree in 
aeronautical engineering from Texas Agricultural and Mechanical 
University in 1960 and a masters of science degree, also in 
aeronautical engineering, from the Georgia Institute of Technology in 
1962.
    Mr. Aldridge began work at the Defense Department in 1967, joining 
the staff of the Assistant Secretary of Defense for Systems Analysis as 
an Operations Research Analyst and then served as Director of the 
Strategic Defensive Division until 1972. He also served as an advisor 
to the Strategic Arms Limitation Talks in Helsinki and in Vienna.
    He re-entered private industry in 1972 as a Senior Manager with LTV 
Aerospace Corp. in Dallas for a year, until he was named Senior 
Management Associate in the Office of Management and Budget, Executive 
Office of the President, in Washington, DC.
    Returning to the Department of Defense in 1974, Mr. Aldridge served 
as Deputy Assistant Secretary of Defense for Strategic Programs until 
1976. He was then selected to be the Director of Planning and 
Evaluation, a Principal Advisor to the Secretary of Defense in the 
planning and program evaluation of U.S. military forces and support 
structure.
    In 1977, Mr. Aldridge once again joined the private sector, 
assuming the role of Vice President of National Policy and Strategic 
Systems Group for the Systems Planning Corp. in Arlington, VA. In that 
position, he was responsible for the corporation's study and analysis 
activities in the areas of strategic and conventional forces and long-
range strategic planning.
    In August 1981, he became Under Secretary of the Air Force, with 
the responsibility for providing overall direction, guidance, and 
supervision for the National Reconnaissance Office (NRO) and the Air 
Force space program, including launch and on-orbit operations, and 
planning for future space capabilities. Mr. Aldridge was also an 
astronaut in training in preparation for his participation as a payload 
specialist on the first planned mission from Vandenberg Air Force Base, 
CA, which was canceled because of the Challenger accident.
    Mr. Aldridge has a long and distinguished record of achievement. 
His outstanding work has earned him numerous awards and honors, 
including the Secretary of Defense Meritorious Civilian Service Award, 
the Department of Defense Distinguished Civilian Service Award, and the 
Department of Defense Distinguished Public Service Award, among many 
others.
    Mr. Aldridge also maintains active ties with various defense-, 
industry-, and aerospace-related groups. In many of these groups he has 
held leadership roles. His affiliations include: former President and 
Fellow, American Institute of Aeronautics and Astronautics (AIM), and 
Chair, AIAA Foundation Board; Member, Defense Science Board; National 
Director and Life Member, Air Force Association; and Member of the 
Board of Directors, Air Force Academy Foundation, among many others.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Edward C. 
Aldridge in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Edward Cleveland Aldridge, Jr.; Nickname: Pete.

    2. Position to which nominated:
    Under Secretary of Defense (Acquisition and Technology), Office of 
the Secretary of Defense.

    3. Date of nomination:
    April 23, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 18, 1938; Houston, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Joanne Knotts.

    7. Names and ages of children:
    Michael C. Aldridge, 41; David L. Aldridge, 39; Mark R. Aldridge, 
31; Lori L. Boyd (Stepdaughter), 33.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Texax A&M University, 1956-60, Bachelor of Science in Aeronautical 
Engineering, 1960.
    Georgia Institute of Technology, 1960-61, Masters of Science in 
Aeronautical Engineering, 1962.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President and Chief Executive Officer, The Aerospace Corporation, 
El Segundo, CA and Arlington, VA, March 1992 to Present.
    President, McDonnell Douglas Electronic Systems Company, McLean, 
VA, December 1988-March 1992.
    Secretary of the Air Force, Department of the Air Force, The 
Pentagon, Washington, DC, June 1986-December 1988.
    Under Secretary of the Air Force, Department of the Air Force, The 
Pentagon, Washington, DC, August 1981-June 1986.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member of the Defense Science Board (DSB), Department of Defense.
    Former Member of the National Security Telecommunications Advisory 
Council.
    Former Member of Advisory Committee on the Future of NASA.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    The Aerospace Corporation, El Segundo, CA --President and CEO, 
Member of the Board of Trustees.
    United Industrial Corporation, New York, NY--Member of the Board of 
Directors.
    AAI Corporation, Hunt Valley, MD--Member of the Board of Directors.
    Charles S. Draper Laboratory, Boston, MA--Member of the 
Corporation.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Institute of Aeronautics and Astronautics--Life Member.
    Air Force Association--Life Member.
    International Academy of Astronautics--Member.
    United States Space Foundation, Colorado Springs, CO--Member of the 
Board of Directors.
    Air Force Academy Foundation, Colorado Springs, CO--Member of the 
Board of Directors.
    Air Force Aid Society, Washington, DC--Member of the Board of 
Directors.
    Air Force Memorial Committee--Member.
    Wolf Trap Foundation, Vienna, VA--Member of the Board of Directors.
    Washington Golf and Country Club--Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    George W. Bush for President.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Delta Air Lines Scholarship--Georgia Institute of Technology
    DOD Distinguished Public Service Award (1977, 1987, 1988)
    Secretary of Defense Meritorious Civilian Service Award (1972)
    Air Force Exceptional Civilian Service Award (1986)
    Army Distinguished Civilian Service Award (1988)
    Navy Distinguished Public Service Award (1988)
    National Intelligence Distinguished Service Award (1989)
    National Reconnaissance Office Distinguished Service Medal (1997)
    Rotary National Award for Space Achievement (1993)
    National Space Club Robert H. Goddard Memorial Trophy (1987)
    Air Force Association Jimmy Doolittle Fellow (1985)
    Air Force Association Ira Eaker Fellow (1986, 1987)
    Air Force Academy Foundation Distinguished American Award (1987, 
1988)
    Air Force Association Max Kriendler Award (1988)
    Air Force Association W. Stuart Symington Award (1988)
    Air Force Association Gen. Bernard Schriever Award (1986)
    American Institute of Aeronautics and Astronautics George M. Low 
Space Transportation Award (1989)
    National Security Industrial Association James V. Hartinger Award 
(1987)
    National Defense Industrial Association Bob Hope Distinguished 
Citizen Award (1998)
    National Guard Association Harry S. Truman Award (1988)
    American Astronautical Society Military Astronautics Award (1985)
    College of Engineering Honor Alumnus, Texas A&M University (1985)
    Texas A&M Corps of Cadets Hall of Fame (1998)
    Engineering Hall of Fame, Georgia Institute of Technology (1997)
    Armed Forces Council of Chicago Distinguished Civilian Service 
Citation (1987)
    Brazilian Air Force ``Merito Aeronautico'' (Legion of Merit) (1986)
    Honorary Member, U.S. Air Force Thunderbirds
    Tau Beta Pi, Sigma Gamma Tau, and Sigma Xi (Honorary Societies)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Defense Against the U.S. Cruise Missile'', Journal of Defense 
Research, 1979
    ``Assured Access: The Bureaucratic Space War'', Goddard Historical 
Essay, National Space Club, 1989
    ``Military Space Systems'', Ohio State University Annual Defense 
Report, 1990
    ``Consistency: A Vital Ingredient for National Security Space 
Programs'', DEFENSE, 1988

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    There have been no formal speeches related to the position for 
which I have been nominated.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Edward C. Aldridge.
    This 23rd day of April, 2001.

    [The nomination of Edward C. Aldridge was reported to the 
Senate by Senator John Warner on May 1, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 8, 2001.]
                              ----------                              

    [Prepared questions submitted to William J. Haynes II by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                    April 24, 2001.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are my answers to the questions of the 
Senate Armed Services Committee in connection with my nomination to be 
the General Counsel of the Department of Defense.
    I welcome the opportunity to respond to the committee's questions 
and look forward to appearing before you during my confirmation 
hearing. If I can provide additional information, I would be happy to 
do so.
            Sincerely,
                                              William J. Haynes II.
Enclosure.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
earlier appointment as the General Counsel of the Army.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. Though I have been away from the Department for more than 8 
years, it is my impression that the Department of Defense has worked 
diligently and effectively to implement the Goldwater-Nichols DOD 
Reorganization Act of 1986, as amended, and the Special Operations 
reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Important aspects of these defense reforms include: clearly 
prescribing the chain of military command from the President to the 
Secretary of Defense, and from the Secretary of Defense to the 
Combatant Commander; clearly defining the role of the Chairman of the 
Joint Chiefs of Staff as the principal military adviser to the 
President, the Secretary of Defense, and the National Security Council; 
designating the Chairman as the spokesman for the combatant commanders, 
subject to the authority, direction, and control of the Secretary of 
Defense; defining the authority and responsibility of the combatant 
commanders; and streamlining the operations of the Joint Staff. 
Strengthening civilian control over the military and clarifying the 
relationships among the Secretary of Defense, the secretaries of the 
military departments, the Joint Chiefs of Staff, and the combatant 
commanders are also clearly important.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
                             relationships
    Question. What do you see as both the formal and informal 
relationship between the General Counsel of the Department of Defense 
and the following offices: the Secretary of Defense; the Under 
Secretaries of Defense; the Assistant Secretaries of Defense; the 
Chairman of the Joint Chiefs of Staff; the Counsels for the Defense 
Agencies; the Legal Advisor to the Chairman of the Joint Chiefs of 
Staff; the Staff Judge Advocates to the Commanders of Combatant 
Commands; the Counsel to the Inspector General; the General Counsels of 
the Military Departments; the Judge Advocates General; the Joint 
Service Committee on Military Justice; the Comptroller General; the 
United States Court of Appeals for the Armed Forces; and the Code 
Committee established under Article 146 of the Uniform Code of Military 
Justice.
    Answer. The Secretary of Defense, as the head of the Department, is 
the most senior official to whom the DOD General Counsel provides 
advice. As General Counsel of the Department of the Army, I had many 
opportunities to observe the relationship between the DOD General 
Counsel and the Secretary of Defense. I view the General Counsel as the 
Secretary's principal adviser on the full breadth of legal issues faced 
by the Department. The General Counsel can also serve the Secretary by 
providing objective advice on policy initiatives. In addition, the 
General Counsel performs such functions as the Secretary may prescribe.
    The DOD General Counsel should work closely with the Under 
Secretaries, both personally and through the General Counsel's staff, 
in assisting them to achieve their policy and programmatic goals within 
the parameters established by law.
    The DOD General Counsel provides legal advice directly to the 
Assistant Secretaries and through the General Counsel's staff.
    While the Chairman of the Joint Chiefs of Staff relies primarily 
upon his Legal Counsel for legal support, the Chairman and the DOD 
General Counsel should work closely on the broad range of matters 
affecting the Department.
    Under DOD Directive 5145.1, which is the regulatory charter of the 
DOD General Counsel, and DOD Directive 5145.4, which charters the 
Defense Legal Services Agency (DLSA), the DOD General Counsel also 
serves as the Director of DLSA. The General Counsels of the Defense 
agencies and DOD field activities are part of DLSA, and thus report to 
the DOD General Counsel. The DOD General Counsel and the Office of the 
DOD General Counsel work closely with the Defense agency and DOD field 
activity General Counsel offices, with frequent informal discussions of 
legal issues and exchanges of information. On a more formal level, the 
DOD General Counsel, primarily through his or her functional Deputy 
General Counsels, supervises the Defense agency and DOD field activity 
General Counsels, providing professional guidance, supervision, and 
coordination.
    The Legal Counsel to the Chairman, a military lawyer in the grade 
of Colonel or Navy Captain, provides legal advice and services to the 
Chairman and the Joint Staff. The DOD General Counsel and the 
Chairman's Legal Counsel cooperate fully in assuring that the officials 
whom their respective offices advise are well-served. In particular, I 
understand that the DOD General Counsel and the Chairman's Legal 
Counsel meet frequently to discuss issues of mutual concern and to 
exchange information.
    The DOD General Counsel's relationship to the Staff Judge Advocates 
of the Combatant Commands is, for the most part, through the Chairman's 
Legal Counsel. There are also frequent informal contacts between the 
Office of the DOD General Counsel and the Staff Judge Advocates of the 
Combatant Commands. In addition, the General Counsel serves as the 
Designated Agency Ethics Official for DOD. As the Deputy Designated 
Agency Ethics Officials for their respective Combatant Commands, the 
staff judge advocates report to the General Counsel with respect to 
standards of conduct matters. The General Counsel's Standards of 
Conduct Office conducts reviews of the Combatant Commands' ethics 
programs.
    I understand that at least some aspects of the relationship between 
the DOD General Counsel and the DOD Inspector General are described in 
a memorandum of understanding with respect to the delivery of legal 
services to the Inspector General. The Deputy General Counsel 
(Inspector General) advises the Inspector General on audits and 
investigations and the interpretation of statutes and regulations, in 
particular, and regarding all matters, of any kind, that relate to the 
programs, duties, functions, or responsibilities of the Inspector 
General, while remaining an integral part of Office of the DOD General 
Counsel.
    The General Counsels of the Military Departments serve as chief 
legal officers of their respective departments, and each reports to the 
Secretary of his or her respective department. As the Secretaries of 
the Military Departments are subject to the authority, direction, and 
control of the Secretary of Defense, necessarily the General Counsel of 
the Department of Defense should meet regularly and work closely with 
the General Counsels of the Military Departments.
    The Judge Advocates General report ultimately to their respective 
Military Department Secretaries. They provide legal services in a 
variety of areas, and have unique responsibilities for military 
justice. As the chief legal officer of the Department of Defense, the 
DOD General Counsel works closely with the Judge Advocates General and 
meets with the Judge Advocates General on a regular basis.
    The Joint Service Committee on Military Justice was created within 
the DOD ``to assist the President in fulfilling his responsibilities 
under the UCMJ in prescribing rules and procedures for the trial of 
courts-martial that are uniform insofar as practicable and apply the 
principles of law and rules of evidence generally recognized in the 
trial of criminal cases in the United States district courts.'' (DOD 
Dir. 5500.17; Art. 36, UCMJ) The committee consists of representatives 
of the Judge Advocates General of the Military Departments, the Staff 
Judge Advocate to the Commandant of the Marine Corps, and the Chief 
Counsel of the Coast Guard. The DOD General Counsel designates a non-
voting representative to the Joint Service Committee. Under DOD 
Directive 5500.17, the Joint Service Committee on Military Justice 
conducts an annual review of the Manual for Courts-Martial. The Joint 
Service Committee considers developments in the Federal criminal code, 
the Federal Rules of Criminal Procedure, the Federal Rules of Evidence, 
and judicial decisions in its review. The committee's recommendations 
for amendments to the Manual are in the form of proposed Executive 
Orders. In addition, the Joint Service Committee prepares legislative 
proposals that are subject to the established DOD coordination process.
    The Comptroller General's duties include investigating the receipt, 
disbursement, and use of public money; evaluating government programs; 
auditing agency financial transactions; reporting on the use of public 
funds; and reviewing bid protests. The DOD General Counsel provides 
legal advice to DOD officials whenever the Department of Defense is 
involved in these matters. The DOD General Counsel also supports the 
DOD Inspector General, who is the central liaison between the 
Department of Defense and the Comptroller General. Further, an agency 
head may request an opinion from the Comptroller General on questions 
involving payments and vouchers. The DOD General Counsel may submit 
such questions to the Comptroller General on behalf of the Secretary of 
Defense. On an informal basis, the Office of the DOD General Counsel 
enjoys a very good relationship with the Comptroller General's office, 
which facilitates dialogue and informal consultation.
    Pursuant to Article I of the Constitution, Congress established the 
Court of Appeals for the Armed Forces in Article 141 of the Uniform 
Code of Military Justice, 10 U.S.C. 941. Article 141 provides that 
``[t]he court is located for administrative purposes only in the 
Department of Defense,'' emphasizing its judicial independence from the 
Department of Defense. Traditionally, the DOD General Counsel serves as 
an informal liaison with the court for the Department.
    The Code Committee consists of the Judges of the United States 
Court of Appeals for the Armed Forces, the Judge Advocates General of 
the Military Departments, the Chief Counsel of the Coast Guard, the 
Staff Judge Advocate to the Commandant of the Marine Corps, and two 
recognized authorities on military justice appointed by the Secretary 
of Defense from public life. On at least an annual basis, the Code 
Committee comprehensively surveys the operation of the Uniform Code of 
Military Justice, reporting its findings to the Senate and House 
Committees on Armed Services, the Secretary of Defense, the Secretaries 
of the Military Departments, and the Secretary of Transportation. While 
the DOD General Counsel has no formal relationship to the Code 
Committee, he or she provides informal support as the Code Committee 
desires. In addition, the DOD General Counsel informs the Code 
Committee with respect to the activities and recommendations of the 
Joint Service Committee on Military Justice.
                             qualifications
    Question. Section 140 of Title 10, United States Code, provides 
that the General Counsel is the chief legal officer of the Department 
of Defense and that the General Counsel shall perform such functions as 
the Secretary of Defense may prescribe.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. I anticipate that Secretary Rumsfeld would ask me to 
perform all of the duties assigned to the DOD General Counsel by 
statute and DOD directives. If confirmed, I would expect, among many 
other functions, to provide legal advice to the Secretary and Deputy 
Secretary of Defense and other DOD officials, supervise the Office of 
the DOD General Counsel and the Defense Legal Services Agency, and work 
closely with the senior legal officials of the military departments, 
all in an effort to provide the very best legal services possible 
throughout the Department of Defense.
                             legal opinions
    Question. Will the legal opinions of your office be binding on all 
lawyers within the Department of Defense?
    Answer. Under 10 U.S.C. 140(b) and DOD Directive 5145.1 (codified 
at 32 C.F.R. part 394), the DOD General Counsel is the chief legal 
officer of the Department of Defense. Consequently, the legal opinions 
of the Office of General Counsel are binding on all lawyers in the 
Department.
    Question. How will you ensure that such legal opinions are 
available to lawyers in the various components of the Department of 
Defense?
    Answer. I am advised that the opinions of the Office of General 
Counsel are disseminated throughout the Department of Defense in the 
ordinary course of business. If confirmed, I would of course expect to 
continue this practice. In addition, I would be receptive to 
appropriate efforts to make the office's opinions available 
electronically.
                        military justice matters
    Question. Since Article 6 of the Uniformed Code of Military Justice 
gives primary jurisdiction over military justice to the Judge Advocates 
General, how do you see your functions in this area with regard to 
those officials?
    Answer. In Article 6, Congress gave the Judge Advocates General the 
responsibility to ``make frequent inspections in the field in 
supervision of the administration of military justice.'' If confirmed, 
I will meet regularly with the Judge Advocates General and provide 
support to them in carrying out this important responsibility and 
ensuring the integrity of the military justice process.
    Question. In your view, how should the General Counsel approach 
military justice matters--both in terms of specific cases and general 
policy issues to provide useful advice without generating problems of 
unlawful command influence?
    Answer. The DOD General Counsel ordinarily has no role to play in 
specific military justice cases. Decisions in these cases are made by 
the commander of the accused, the convening authority, the military 
judge, and court members. The Service Courts of Criminal Appeals and 
the U.S. Court of Appeals for the Armed Forces (USCAAF) provide 
appellate review of cases arising under the Uniform Code of Military 
Justice. The General Counsel, like the Secretary of Defense and other 
senior civilian and military officials of the Department, must avoid 
any action that may affect or appear to affect the outcome of any case. 
I share the USCAAF's view that unlawful command influence can be a 
``mortal enemy'' of military justice. The DOD General Counsel helps to 
ensure that the military justice system and its judicial officers are 
not subjected to inappropriate external pressures that may threaten or 
be perceived to threaten the independence of the military's judicial 
system or the commander's UCMJ discretion in maintaining good order and 
discipline.
    The DOD General Counsel plays a major role in developing military 
justice policy. The General Counsel performs this role primarily 
through the Joint Service Committee on Military Justice, which conducts 
an annual review of the Manual for Courts-Martial and other assigned 
special reviews of military justice issues of importance to the 
Department, through liaison responsibilities with the Code Committee, 
through the DOD legislative process by which proposed legislation to 
amend the Uniform Code of Military Justice is submitted to Congress, 
and through coordination on the issuance of DOD guidance establishing 
policy in such related areas as victim and witness assistance, 
confinement of military prisoners, and criminal investigation policies.
    processing the annual department of defense legislative request
    Question. One of the current responsibilities of the General 
Counsel of the Department of Defense is to coordinate the Department's 
legislative program and to provide the Department's views on 
legislative proposals initiated from outside the Department.
    What actions will you take to ensure that the Department's 
legislative proposals are submitted in a timely manner to ensure ample 
opportunity for consideration before markup of the National Defense 
Authorization Act?
    Answer. I am advised that the Department's ``omnibus'' approach to 
the development of the departmental legislation program has matured 
during the past few years. It seems an efficient and fair method for 
the examination and consideration of legislative initiatives. It is 
also more efficient, allowing the Department to provide proposed 
legislation to Congress in a timely manner.
    If confirmed, I intend to work to improve efficiency and discipline 
in the Department's approach and to achieve prompt interagency 
coordination on the Department's legislative initiatives.
    Question. What actions will you take to ensure Congress receives 
the Department's views on other proposed legislation in a timely 
manner?
    Answer. I understand Congress' need for timely comments from the 
Department. If confirmed, I will be attentive to the need to provide 
views on all bills in a timely manner.
                            judicial review
    Question. What is your understanding of the appropriate role of the 
Article III courts in the review of military activities?
    Answer. The Constitution provides that Congress and the President 
have the power to control the military. The nature of this power, and 
the role of the Article III courts in defining or limiting it, have 
been addressed repeatedly by the Supreme Court. As a general 
proposition, the Court has explained that ``it would be difficult to 
think of a clearer example of the type of governmental action that was 
intended to be left to the political branches directly responsible--as 
the judicial branch is not--to the electoral process.'' Gilligan v. 
Morgan, 413 U.S. 1, 4 (1973).
    Many courts and scholars have long recognized that courts should be 
reluctant to intrude into the constitutional responsibilities of the 
President and Congress for the Armed Forces, in which the professional 
judgments made are unique and subject to carefully defined control. 
``[J]udges are not given the task of running the Army . . . . Orderly 
government requires that the judiciary be as scrupulous not to 
intervene in legitimate Army matters as the Army must be scrupulous not 
to intervene in judicial matters.'' Orloff v. Willoughby, 345 U.S. 83, 
93-94 (1953). ``[I]t is difficult to conceive of an area of 
governmental activity in which the courts have less competence. The 
complex, subtle, and professional decisions . . . are essentially 
professional military judgments, subject always to civilian control of 
the legislative and executive branches.'' Gilligan v. Morgan, 413 U.S. 
at 10.
    The courts have held that the great majority of internal military 
decisions are not subject to judicial review. See Sebra v. Neville, 801 
F.2d 1135 (9th Cir. 1986); Mindes v. Seaman, 453 F.2d 197 (5th Cir. 
1971). In the narrow range of cases in which judicial review of 
military activities occurs, the courts must give great deference to 
executive and legislative judgments on military matters. Loving v. 
United States, 517 U.S. 748, 767 (1996).
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of Defense?
    Answer. The client of the DOD General Counsel is the Department of 
Defense.
                              legal ethics
    Question. What is your understanding of the action a Department of 
Defense attorney should take if the attorney becomes aware of improper 
activities by a Department of Defense official who has sought the 
attorney's legal advice and the official is unwilling to follow the 
attorney's advice?
    Answer. Working diligently to ensure the faithful execution of the 
laws is the duty of every DOD attorney. If any DOD attorney learns of 
improper activities by an official who has sought his or her legal 
advice but is unwilling to follow it, the attorney should immediately 
notify his or her legal supervisor (or the senior lawyer in the next 
higher level of his organization) concerning the improper activities. 
The professional chain of communication on legal matters provides the 
means to take the matter as high as it needs to go in the errant 
official's supervisory chain to ensure that corrective action is taken 
promptly.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed?
    Answer. I am unaware of any concerns by Department of Defense 
attorneys regarding limitations on their pro bono activities. If I am 
confirmed, I will be attentive to any issues in this area, and 
recommend appropriate changes in policy if warranted.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of Defense provide adequate guidance?
    Answer. I have not reviewed this issue, but I am advised that the 
laws, regulations, and guidelines that establish the rules of 
professional responsibility for attorneys in the Department of Defense 
provide adequate guidance. All DOD attorneys are members of the Bar of 
a State or the District of Columbia. Thus, they are subject to the 
rules of their respective Bars. Attorneys in the military departments 
and a number of other components are also bound by the rules of 
professional responsibility of those components.
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Department of Defense in ensuring the integrity of the officer 
promotion process?
    Answer. Under Subchapter 1 of Chapter 36, Title 10, United States 
Code, initial responsibility for the proper functioning of the 
promotion selection process as that process is applicable to individual 
selection boards resides with the Secretary of the military department 
concerned. All reports of promotion selection boards are processed 
through the Office of the Department of Defense General Counsel prior 
to final action on the report by the Secretary or Deputy Secretary of 
Defense. The DOD General Counsel must satisfy himself or herself that 
there has been adherence by the military departments to the statutory 
standards prescribed in Chapter 36 and that the work product of each 
individual selection board, as embodied in its report, is in conformity 
with statutory requirements. If, in a given case, the DOD General 
Counsel concludes upon the review of a selection board report that 
there has been a failure to adhere to the statutory standards, either 
generally or with regard to a particular officer being considered for 
promotion, the DOD General Counsel should advise the Secretary of 
Defense concerning the perceived irregularities. Further, the Office of 
General Counsel, in providing advice to the Office of the Assistant 
Secretary of Defense for Force Management Policy, helps to ensure that 
departmental policies dealing with the promotion of officers, as 
promulgated in DOD Directives and Instructions, fairly and accurately 
reflect the provisions of law set out in chapter 36.
    Question. What is the role of the General Counsel of the Department 
of Defense in reviewing and providing potentially adverse information 
pertaining to a nomination to the Senate Armed Services Committee?
    Answer. If adverse information is attributed to a prospective 
nominee, the DOD General Counsel should satisfy himself or herself that 
the evidence in the investigative file supports the description of the 
adverse information attributed to the officer being considered for 
nomination. In addition, the DOD General Counsel should raise issues 
regarding such adverse information with officials in the appropriate 
service and OSD when warranted. When the adverse information attributed 
to an officer is unusual or otherwise raises issues that are out of the 
ordinary, the DOD General Counsel should give the Secretary of Defense 
the benefit of the General Counsel's own evaluation of the significance 
of the adverse information with regard to the qualifications of the 
officer to serve in the grade or position to which he or she may be 
nominated. The DOD General Counsel should work within the Department to 
ensure that such adverse information is appropriately reported to the 
Senate Armed Services Committee through established channels, and all 
written communications forwarded to the committee pertaining to adverse 
information attributed to an officer recommended for nomination should 
be reviewed by the DOD General Counsel. Ultimately, the Department's 
adverse information reporting system must ensure that the committee 
receives timely notification of ongoing investigations and potentially 
adverse information pertaining to nominees for flag and general officer 
appointment.
             litigation involving the department of defense
    Question. In your opinion, what is the relationship between the 
Department of Defense and the Department of Justice with respect to 
litigation involving the Department of Defense?
    Answer. Attorneys who represent the Defense Department or its 
components work directly with the Department of Justice counsel in 
cases in which the Department of Defense, or one or more of its 
components or its officials, is a party or has an interest. The 
Department of Justice has the statutory responsibility to represent the 
United States, its agencies, and its officers, including the Department 
of Defense, in all litigation matters. See 28 U.S.C. Section 516. 
Nonetheless, attorneys representing DOD review pleadings before they 
are filed with the courts, conduct and direct discovery, participate in 
making major litigation decisions, and in some cases become a part of 
the trial team. It is my understanding that attorneys from the 
Departments of Defense and Justice work closely to represent the 
Department and the United States in all respects.
    Question. Is the present arrangement satisfactory, or does the 
Department need more independence to conduct its own litigation?
    Answer. I am not aware of any need to change the present 
arrangement.
                       court of appeals decision
    Question. On January 4, 2000, the United States Court of Appeals 
for the District of Columbia Circuit decided the case of National 
Center for Manufacturing Sciences v. Department of Defense, 199 F. 3d 
507 (D.C. Cir. 2000). The court concluded that ``Because of the 
existence of 10 U.S.C. Section 114, it is clear that any monies 
appropriated for NCMS by Congress for research must be authorized 
before they can be appropriated and distributed''; and ``Because 10 
U.S.C. Section 114(a)(2) requires authorization of these funds before 
they become available, appropriation alone is insufficient.''
    What is your view of the court's decision in this case and its 
implications regarding the obligation of funds that are appropriated, 
but not authorized?
    Answer. The case in question affirmed the district court's decision 
to grant the government's motion to dismiss for failure to state a 
claim. The basis for the decision was the fact that in the Department's 
Fiscal Year 1995 Authorization Act, Congress effectively rescinded the 
unreleased portion of a fiscal year 1994 funding earmark for the 
National Center for Manufacturing Sciences (NCMS). Accordingly, the 
court concluded that NCMS had no legal entitlement to the funds 
claimed.
    Based on the court's opinion, it appears that all parties to this 
litigation, and the court, viewed the funds in issue to have been 
authorized by Congress. Thus, the ``appropriated not authorized'' issue 
was not squarely presented for decision in this case, but was addressed 
only as a collateral matter. Situations where funds have been 
appropriated but not authorized are often complex and may involve 
unique statutory language. As a result, I would anticipate that the 
Department will continue its practice of working closely with our 
oversight committees whenever these issues are presented.
               role in military personnel policy matters
    Question. What role, if any, should the General Counsel play in 
military personnel policy and individual cases, including cases before 
the service boards for the correction of military records?
    Answer. The range of issues potentially requiring legal advice from 
the DOD General Counsel's office is very broad. I am advised that 
attorneys within the Office of General Counsel frequently become 
involved with policy issues pertaining to military personnel, both with 
regard to individual cases and to the application of the Department's 
personnel policies throughout the services. I believe that the General 
Counsel should, in appropriate cases, make his or her views about 
individual cases and the development and application of personnel 
policies known to the Department's senior leadership, so that 
individual cases are resolved fairly and that overall policies are 
developed uniformly, fairly, and in conformance with law.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next General Counsel of the Department of Defense?
    Answer. If confirmed, my priorities will follow those of the 
President and the Secretary of Defense. Consequently, among the major 
challenges will be to serve the Secretary and his leadership team as 
advisor, counselor, and advocate in addressing those priorities. 
Moreover, the Department's routine functions and missions are so vast 
and unpredictable that it is difficult to anticipate specific questions 
that will arise.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. I am convinced that the attorneys and staff of the legal 
community of the Department of Defense have addressed their 
responsibilities very capably in the past. If confirmed, I will work to 
ensure that the Department's lawyers continue to provide sound, 
professional, and responsive legal advice to our clients concerning not 
only these legal issues, but also the numerous other issues that the 
Department of Defense confronts on any given day.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the General Counsel of the 
Department of Defense?
    Answer. I am aware of no serious problems in this area.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed, I will focus on assuring that the legal 
community of the Department of Defense provides quality, timely, and 
sound legal advice and counsel.
    Question. What do you see as the greatest legal problems facing the 
Department in the coming year?
    Answer. Please see my response to ``Major Challenges,'' above.
    Question. Does the Office of the General Counsel have the resources 
to deal with these problems and do its everyday work?
    Answer. If I am confirmed, I will be sensitive to the requirement 
to ensure that the Office of General Counsel has adequate resources. If 
I determine that those resources need augmentation, I will recommend 
appropriate increases.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. Although the potential of additional U.S. 
military action has diminished, what is the established mechanism to 
ensure that all deployments of U.S. Armed Forces are brought to the 
attention of the DOD General Counsel so that the consultation and 
reporting provisions of the War Powers Resolution is implemented?
    Mr. Haynes. There is an established mechanism within the Department 
of Defense to ensure that the General Counsel reviews all orders that 
involve the possible deployment of U.S. Armed Forces in situations in 
which consultation and reporting consistent with the War Powers 
Resolution may be warranted. Operational planning processes and 
administrative procedures ensure that all relevant officials in the 
Office of the Secretary of Defense and the Office of the Chairman of 
the Joint Chiefs of Staff are aware of the requirement for General 
Counsel review of such deployments.


    2. Senator Thurmond. In 1985, a comprehensive Department of Defense 
``Joint Study on Religious Matters'' concluded that application of the 
Religious Freedom Restoration Act style ``strict scrutiny'' standard to 
religious practice in the military ``would be a standing invitation to 
a wholesale civilian judicial review of internal military affairs. . . 
Adoption of the civilian `strict scrutiny' standard poses grave dangers 
to military discipline and interferes with the ability of the military 
to perform its mission.'' What are your views regarding the 
implications of applying the ``strict scrutiny'' standard to religious 
practices in the military?
    Mr. Haynes. The 1985 Department of Defense ``Joint Study on 
Religious Matters'' did not oppose accommodation of religious 
practices. The study recommended against a mandatory standard that 
required military commanders to accommodate religious practices without 
taking into consideration the requirements of military duty. As the 
courts have consistently held, the military is, by necessity, a 
specialized society separate from civilian society. Accommodation 
standards require a different application in the military than may be 
applied in a civilian context. The study concluded that it seems 
unlikely that the courts will use the same strict scrutiny test in the 
military context they use in the civilian context. Furthermore, the 
study concluded that the courts would likely continue to give deference 
to the military in matters of military requirements, discipline and 
military expertise. I believe we have found this to be the case. The 
Department has not experienced the wholesale civilian judicial review 
of internal military affairs that those conducting the study may have 
envisioned. Similarly, the concerns have not materialized regarding 
grave dangers to military discipline and interference with the ability 
of the military to perform its mission. Department of Defense Directive 
1300.17, ``Accommodation of Religious Practices Within the Military 
Services,'' has proved successful in balancing the religious interests 
of its personnel with the military necessity for readiness, unit 
cohesion, standards, and discipline.
    While ``strict scrutiny'' is a high standard, the religious beliefs 
and practices of our military members are important personal interests 
that should not be taken lightly. When military necessity and the 
standards of good order and discipline require restrictive action based 
on compelling military interests, the courts have historically afforded 
the military the appropriate deference that is due. Moreover, 
commanders are not reporting adverse impacts on military discipline or 
mission accomplishment.


    3. Senator Thurmond. We all have read stories in the press 
criticizing the military justice system and the Uniform Code of 
Military Justice. Often these articles are sensationalized and written 
by people who have no understanding of the system. How would you 
characterize the military justice system?
    Mr. Haynes. I believe much of the criticism of the military justice 
system as a whole is, in large part, due to the fact that many members 
of the media, jurists, and general public have no actual experience 
with the administration of military justice or the military judicial 
system. I would characterize the military justice system as a 
progressive system of laws and procedures that measures well against 
other judicial systems. 
    We recently observed the 50th anniversary of the Uniform Code of 
Military Justice (UCMJ), a great step forward in military jurisprudence 
and the protection of rights afforded our service members. Starting 
with the creation of a court of appeals, composed of civilian judges, 
in 1951 (now the United States Court of Appeals for the Armed Forces), 
the authorization of discretionary review of courts-martial by the U.S. 
Supreme Court, and the transformation of the courts-martial process 
into a judicial system, military justice can take pride in its 
evolution. The individual rights afforded our men and women in uniform, 
and the due process provided in our court-martial procedures, are 
significant levels of achievement. However, no judicial system should 
be regarded as perfect. By doing so, we would preclude all interest in 
making improvements and tend to overlook, rather than address, 
problems. For these reasons, it is important that the Department 
continues to work with both the Code Committee, established by Article 
146, UCMJ, and the Joint Service Committee on Military Justice, 
established by DOD Directive. Both committees perform crucial 
functions. The Code Committee conducts an annual review of the 
operation of the UCMJ, and the Joint Service Committee on Military 
Justice provides an annual review of the Manual for Courts-Martial 
procedures.
    While some specific issues or areas may warrant further review, the 
military justice system as a whole is operating as Congress intended 
and as required to meet the needs of the military for good order and 
discipline.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
    4. Senator Lieberman. What are your priorities regarding OSD 
General Counsel?
    Mr. Haynes. As the DOD General Counsel, I will strive to ensure 
that the Department of Defense receives legal services, grounded on 
fidelity to the law, that reflect careful and thorough analysis, are 
sensitive to the crucial mission of the Department and the Secretary's 
policy objectives, and provide, whenever possible a range of legally 
appropriate options for the consideration of decisionmakers.


    5. Senator Lieberman. DOD's Alternate Dispute Resolution (ADR) 
Program (resolution of disputes in the earliest stage feasible, by the 
fastest and least expensive method, and at the lowest organizational 
level) continues to grow and offer less costly means of dispute 
resolution. What changes or enhancements, if any, will you make to the 
ADR Program?
    Mr. Haynes. I am a strong proponent of using ADR to resolve 
disputes as early as possible in the course of a dispute. I am aware 
that ADR is already being used to a greater extent than ever before and 
in more areas throughout the Defense Department. I am learning that the 
ADR programs in the various DOD components vary in their size and 
scope, and that the components are generally buoyed by their successes 
and are seeking further encouragement and support for their ADR 
programs.
    As General Counsel, I will actively promote the use of ADR. All 
Defense Department components will be encouraged to support efforts 
both to use ADR early and to move from a focus on ADR as a tool of 
lawyers to conflict management as a business objective of the entire 
component. My focus will be to reinforce appropriate use of ADR in all 
DOD components. I will emphasize to senior leadership in all components 
the need to deepen the penetration of ADR and will encourage them to 
continue to make progress in improving their ADR programs.
    In managing the ADR program, my office will concentrate on 
improving the evaluation of the ADR programs in the Department, sharing 
lessons learned among the components, and implementing recent 
legislation on pilot projects for employing ADR.
                                 ______
                                 
              Question Submitted by Senator Jean Carnahan
    6. Senator Carnahan. I am advised that the National Imagery and 
Mapping Agency (NIMA) has proposed that work performed by 600 Federal 
employees at installations in Missouri and Maryland be directly 
converted to contractor performance without a public-private 
competition under OMB Circular A-76. According to NIMA, the apparent 
authority for this conversion is 10 U.S.C. 8014. But that statute does 
not contain an exemption from the blanket requirement to conduct an A-
76 study.
    Please provide an explanation of the legal authority under which 
NIMA proposes to conduct a direct conversion of these jobs, cite the 
specific provisions of Circular A-76 that allow such a conversion, and 
provide the documents supporting that the appropriate procedures have 
been followed by NIMA in this instance.
    Mr. Haynes. This responds to your request that I review the 
procedures for outsourcing certain information technology (IT) and 
information services (IS) functions at the National Imagery and Mapping 
Agency (NIMA).
    For some time NIMA management has been reviewing its IT and IS 
functions to determine which should be performed only by government 
employees (i.e., ``core'' functions), and which could be performed 
otherwise. Industry analysts and consultants under contract to NIMA 
conducted part of this review. In response to the resulting 
recommendations, NIMA management has determined that the IT and IS 
functions currently performed by approximately 1,100 government 
employees plus a number of contractors could be restructured to provide 
more efficient and less costly operations.
    NIMA management has determined that 500 of the employees are 
performing core functions. The functions performed by the remaining 600 
employees, as well as those performed under 12 contracts, are currently 
being evaluated to determine whether to consolidate them into a single 
prime contract with some number of subcontracts. Working with the Small 
Business Administration (SBA), NIMA has identified an 8(a) contractor 
with the potential to serve as the prime contractor. SBA's 8(a) program 
provides preferential procurement opportunities to developing small, 
disadvantaged businesses meeting certain social and economic criteria. 
The 8(a) firm is currently developing its proposal for performing and 
subcontracting the work and will deliver that proposal to NIMA in late 
July. NIMA intends to spend August evaluating the proposal. If the 
decision is made to award a contract, the award would not be made 
before September 15, 2001, with performance transition commencing 
October 1, 2001.
    NIMA management's principal concerns in approaching this potential 
outsourcing have been continued customer support and the preservation 
and protection of its skilled workforce. NIMA's mission will not 
tolerate employee uncertainty and disruption. Moreover, management 
recognizes that any contractor's performance would benefit from the 
unique qualifications of the current NIMA employees, including their 
security clearances. Management expects that most of the 600 employees 
whose functions are included in this initiative may be interested in 
private sector employment. Indeed, NIMA is considering using voluntary 
separation incentive payments to assist these employees in the 
transition. For these reasons, part of NIMA's requirement that the 8(a) 
contractor must include in its proposal is the voluntary transition of 
current NIMA IT and IS employees to the contractor's employment over 
the course of 5 to 7 years. This requirement should enable NIMA to 
convert these functions to contract performance with no reduction-in-
force or other involuntary personnel actions, and permit employees the 
full range of normal employment options. NIMA's expectation is that 
over the 5-year transition period, current NIMA employees will be able 
individually to decide whether and when to accept employment with the 
contractor or to remain at NIMA by reassignment within the agency.
    The 8(a) firm currently under consideration is an Alaskan Native 
Corporation. Consequently, a cost comparison under OMB Circular A-76 is 
not required, nor is the analysis required under section 8014 of the 
Department of Defense Appropriations Act, 2001, Public Law 106-259. 
Section 8014 also exempts firms that are ``under 51 percent ownership 
by an Indian tribe,'' such as this 8(a) firm, from the reporting and 
analysis requirements of section 2461 of Title 10, United States Code. 
Nevertheless, NIMA's final decision to award a contract to outsource 
these IT and IS functions will be made upon NIMA's determination that 
such a decision will produce efficiencies and cost savings.
    I am satisfied that appropriate legal procedures have been 
followed. Your request for a suspension of NIMA's activities is 
unnecessary, as NIMA is still collecting information, and will not be 
in a position to make a decision before September 15, 2001. As for your 
request for consultation, NIMA management would be pleased to provide a 
discussion of their approach to you or your staff at your convenience. 
Commander Jim Fraser, Director, Senate Affairs, Office of the Assistant 
Secretary of Defense (Legislative Affairs), 703-695-7104, can make the 
necessary arrangements.
                                 ______
                                 
    [The nomination reference of William J. Haynes II follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 23, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William J. Haynes II, of Tennessee, to be General Counsel of the 
Department of Defense, vice Douglas A. Dworkin.
                                 ______
                                 
    [The biographical sketch of William J. Haynes II, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of William J. Haynes II
    Born in Waco, Texas, Jim Haynes was raised in a United States Air 
Force family. Mr. Haynes earned his B.A. degree on an Army R.O.T.C. 
scholarship at Davidson College, where he was elected to membership in 
Phi Beta Kappa and Omicron Delta Kappa, and earned his J.D. degree from 
Harvard Law School. After law school, Mr. Haynes clerked for U.S. 
District Judge James B. McMillan in Charlotte, North Carolina. He then 
served 4 years on active duty as an officer in the United States Army, 
leaving for private practice.
    In 1990, President George Bush appointed Mr. Haynes General Counsel 
of the Department of the Army, a post he held for 3 years. As chief 
legal officer of the Army, Mr. Haynes was ultimately responsible for 
all legal matters confronting the Army, and for professional oversight 
of the military and civilian lawyers of the Army.
    Mr. Haynes is a partner in the Washington, D.C. office of Jenner & 
Block, where he represents corporate and individual clients, providing 
a range of legal services and counseling. For 3 years in the mid-1990s, 
he was Staff Vice President and Associate General Counsel for General 
Dynamics Corporation; part of that time he also served as General 
Counsel of General Dynamics' Marine Group.
    In private life, Mr. Haynes is active in public service. He 
recently concluded his service on the Advisory Committee to the 
Standing Committee on Law and National Security of the American Bar 
Association. He is ``outside'' General Counsel for the Army Engineer 
Association. He is a Member of the National Advisory Committee for 
Maryville College in Tennessee. He has served on a panel of the 
National Academy of Sciences' Naval Studies Board. From February 
through April 1999, Mr. Haynes provided pro bono legal services to a 
non-governmental relief organization, Mercy Corps International, from 
its offices in Central Asia. Mr. Haynes has represented defendants, pro 
bono, in the District of Columbia court system, and he currently 
advises several non-profit enterprises.
    Mr. Haynes is licensed to practice law in the District of Columbia 
and in the States of Georgia and North Carolina. He is listed in Who's 
Who in America, and Who's Who in American Law. He holds an honorary 
Doctor of Laws from Stetson University, where he delivered the 
commencement address in May 1999.
    Mr. Haynes is married to Margaret Campbell Haynes of Newnan, 
Georgia. Mr. and Mrs. Haynes have three children: Will, Sarah, and 
Taylor.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by William J. 
Haynes II in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William James Haynes II.

    2. Position to which nominated:
    General Counsel of the Department of Defense.

    3. Date of nomination:
    April 23, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 30, 1958; Waco, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Margaret Frances Campbell Haynes.

    7. Names and ages of children:
    William James Haynes III (age 14), Sarah Insley Haynes (age 12); 
Taylor Bynum Haynes (age 9).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Harvard Law School, J.D. 1983, Cambridge, MA.
    Davidson College, B.A. 1980, Davidson, NC.
    Parkway High School, Diploma 1976, Bossier City, LA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    May 1999 to present: Partner, Jenner & Block (law firm), 601 13th 
Street, NW., Washington, DC.
    February-April 1999: Volunteer Consultant, Mercy Corps 
International (relief organization), Almaty, Kazakhstan.
    July 1996-January 1999: Staff VP and Associate General Counsel, GC 
of Marine Group (1997-1998), General Dynamics Corporation, 3190 
Fairview Park Drive, Falls Church, VA.
    April 1993-July 1996: Partner, Jenner & Block (law firm).
    March 1990-January 1993: General Counsel of the Department of the 
Army, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Dec. 2000-Feb. 2001: Policy Coordinator (volunteer), Federal 
Emergency Management Agency, Bush-Cheney Transition.
    1993: Consultant, Information Warfare Panel (pro bono), Naval 
Studies Board, National Academy of Sciences.
    Nov. 1989-March 1990: Special Assistant to the General Counsel, 
Department of Defense.
    January 1989-April 1989: Counsel to the Transition, Department of 
Defense.
    October 1984-Dec. 1988: Officer (eventually Captain), United States 
Army.
    Sept 1983-Sept. 1984: Law Clerk, Judge James B. McMillan, U.S. 
District Judge (W.D.N.C.).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner, Jenner & Block (law firm).
    Member, Maryville College National Advisory Council.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, American Bar Association.
    Member, Army Navy Club.
    General Counsel, Army Engineer Association.
    Member, Phi Beta Kappa.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Republican Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush for President, Inc.--$500.00 (July 2000)
    Bush for President, Inc.--$250.00 (February 2000)
    Friends of George Allen--$500.00 (May 2000)
    Quayle 2000--$250.00 (May 1999)
    Leahy for U.S. Senator Committee--$250.00 (May 1998)
    Snowe for Senate--$250.00 (March 1998)
    Shelby for U.S. Senate--$300.00 (October 1997)
    George W. Bush for Governor--small, unknown amounts (1995/6 and 
1998?)
    Various small contributions to the Republican National Committee 
over the years.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Honorary Doctor of Laws, Stetson University (1999).
    Decoration for Distinguished Civilian Service (Department of the 
Army) (1992).
    Meritorious Service Medal (with Oak Leaf cluster) (1986, 1988).
    Army ROTC Scholarship (1976-1980).
    Phi Beta Kappa (1980).
    Omicron Delta Kappa (1980).
    Eagle Scout (1971).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Value of Wetlands as Wetlands: The Case for Mitigation 
Banking,'' 23 Environmental Law Reporter 10261, Vol. XXIII, No. 5, May 
1993. (Co-authored with Royal C. Gardner.)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None relevant to this position.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              William J. Haynes II.
    This 18th day of April, 2001.

    [The nomination of William J. Haynes II was reported to the 
Senate by Senator John Warner on May 1, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 17, 2001.]
                              ----------                              

    [Prepared questions submitted to Powell A. Moore by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                    April 24, 2001.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                   Powell A. Moore.
cc: Honorable Carl Levin,
      Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes. The establishment of the unified and specified 
combatant commands, the delineation of responsibilities, and most 
importantly, the focus on ``jointness'' outlined in the Defense 
Reorganization Act of 1986 has enhanced the readiness and warfighting 
capabilities of our Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have changed the way the Department of 
Defense works by strengthening the role of the Chairman of the Joint 
Chiefs of Staff and the combatant commanders, and significantly 
improving the ability of the Department to protect America's security 
and further its vital interests. The reforms have helped improve the 
interaction among the services in conducting military operations by 
making joint operations the norm.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted below to be an 
important aspect of these defense reforms. Each one has enhanced the 
ability of the Department of Defense to carry out its assigned 
responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
                             relationships
    Question. If confirmed, what would be your relationship with: the 
Secretary of Defense; the Deputy Secretary of Defense; the Under 
Secretaries and Assistant Secretaries of Defense; the General Counsel 
of the Department of Defense; the Inspector General of the Department 
of Defense; the Defense Agencies; and the legislative affairs officers 
of the military departments and the Joint Staff.
    Answer. If confirmed, I will function as the principal staff 
assistant to the Secretary on congressional matters. Under the 
Secretary's direction, I will be responsible for Department legislative 
program coordination, congressional liaison in various forms, 
participation of departmental witnesses in congressional hearings, 
responses to congressional inquiries, and Department support of 
congressional travel.
    If confirmed, my relationship with the Deputy Secretary of Defense 
will be substantially the same as that described above with respect to 
the Secretary of Defense.
    If confirmed, my relationship with the Under Secretaries of Defense 
and the Assistant Secretaries will be to serve as principal advisor 
regarding liaison and communications with Congress.
    If confirmed, my relationship with the General Counsel will be 
based on my role as principal staff assistant to the Secretary of 
Defense on congressional matters. Identifying legal issues inherent in 
legislative matters and obtaining the views and recommendations of the 
General Counsel is central to the effective performance of my duties. 
If confirmed, I will fully support the General Counsel in the 
development of the DOD legislative program and coordination of 
Department positions on proposed legislation, including the preparation 
and submission of annual legislative proposals.
    If confirmed, I will be fully cooperative and supportive of the 
Inspector General's mission.
    If confirmed, I will provide overall guidance to the individual 
Defense Agencies with respect to the Department's legislative issues. I 
will ensure that the agencies are responsive to congressional 
inquiries, and have a thorough understanding of the Department's 
legislative initiatives and the Secretary's position on issues.
    By Title 10 and Department of Defense Directive, ultimate 
responsibility for supervision of legislative liaison activities 
throughout the Department is vested in the Assistant Secretary of 
Defense for Legislative Affairs. If confirmed, I will work closely with 
the legislative affairs offices of the Military Departments and the 
Joint Staff and will continue to foster a climate of effective 
cooperation and mutual support.
    Question. Within the Office of the Secretary of Defense, the 
defense agencies, and the combatant commanders, there are numerous 
offices that have their own congressional liaison personnel.
    What will you do to ensure that your office is the focal point for 
all of the Department of Defense for dealing with Congress?
    Answer. If confirmed, I will meet regularly with representatives of 
all components of the Department to ensure full coordination on all 
legislative matters. It will continue to be our goal that all 
legislative affairs activities of the Department are coordinated 
through the OSD Legislative Affairs Office.
                                 duties
    Question. Section 138 of Title 10, United States Code, provides 
that the principal duty of the Assistant Secretary of Defense for 
Legislative Affairs is the overall supervision of legislative affairs 
of the Department of Defense. Other duties are to be prescribed by the 
Secretary of Defense.
    Should you be confirmed as the Assistant Secretary of Defense for 
Legislative Affairs, what would you view as your principal 
responsibilities to the Secretary of Defense?
    Answer. My principal responsibility will be to ensure that the 
Secretary, Deputy Secretary, and key principals in the Department of 
Defense are fully aware of congressional interests, concerns, and 
initiatives. If confirmed, I will work closely with our oversight 
committees of Congress and the various components of the Department of 
Defense to ensure that the Department's policies are properly 
articulated and that issues raised by Congress are clearly understood 
and addressed by the Department.
    Question. Assuming you are confirmed, what other duties do you 
expect that Secretary Rumsfeld will prescribe for you?
    Answer. If confirmed, my responsibilities will encompass the full 
spectrum of legislative activities and concerns for the Department. 
While this will be my primary focus, I will certainly take on any other 
duties prescribed by Secretary Rumsfeld.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Defense for Legislative Affairs?
    Answer. If confirmed, one of the greatest challenges I will face is 
to ensure the continued flow of timely, accurate, and relevant 
information to Congress on all defense-related issues. As we shape our 
military force to meet the challenges of the 21st century, it is 
essential that the administration and Department remain fully engaged 
with Congress and that we maintain a bipartisan consensus on defense 
matters and national security issues.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I expect to meet on a daily basis with senior 
Department leadership to ensure that our legislative priorities are 
fully coordinated, and that the Secretary, Deputy Secretary, and senior 
Department leadership receive timely and valuable advice on all 
legislative issues. While it is essential that the lines of 
communication remain open between the Department and our oversight 
committees and Senate/House leadership, it is equally important that we 
are aware of the priorities and responsive to the defense-related 
concerns of other congressional committees and members.
    Question. What do you consider to be the most serious problems in 
the military services' relationships with Congress?
    Answer. As we consider the necessary steps to shape and transform 
our military to meet the demands of a new century, the services will 
play a central role in the necessary dialogue with Congress. If 
confirmed, I expect to work closely with the Legislative Affairs 
Service Chiefs and the Joint Staff to meet and address the challenges 
ahead. Addressing issues such as readiness, military pay and 
retirement, health care, technological advances, and emerging threats 
will require close coordination, not only within the Department of 
Defense but also between the executive and legislative branches.
    Question. If confirmed, what management action and timetables would 
you establish to address these problems?
    Answer. If confirmed, I will work closely with the services and the 
Joint Staff to address the challenges noted above.
              role of congress in national security policy
    Question. In your opinion, what is the role of Congress in setting 
national security policy?
    Answer. The Constitution charges Congress with raising, 
maintaining, and regulating the Armed Forces. The development and 
execution of our national security policy must be a shared 
responsibility. The administration and Department will work closely 
with Congress as we shape our military forces to meet the demands of 
the 21st century. If confirmed, I look forward to working with this 
committee and Congress to further the cooperative engagement that has 
long been the standard, and to forge and maintain a bipartisan 
consensus on national defense issues.
               liaison with the appropriations committee
    Question. The liaison with the Appropriations Committees is 
currently carried out through the Office of the Under Secretary of 
Defense, Comptroller, not through the Office of the Assistant Secretary 
of Defense for Legislative Affairs.
    Do you believe that this arrangement allows you to carry out your 
responsibility under Section 138 of Title 10, United States Code?
    Answer. Ultimate responsibility for the supervision of legislative 
liaison activities throughout the Department of Defense is vested in 
the Assistant Secretary of Defense for Legislative Affairs. If 
confirmed, I plan to work closely with the Office of the Under 
Secretary of Defense/Comptroller, as well as all other relevant offices 
within the Department, the Joint Staff, and the services to ensure that 
our legislative priorities in all matters are fully understood and 
coordinated.
    Question. Based on your experience, does the fact that there are 
two separate offices within the Office of the Secretary of Defense 
dealing with Congress create coordination problems?
    Answer. Our goal will be that the legislative priorities and 
concerns of the Department are fully coordinated, not only within the 
Pentagon but also with Congress. It's extremely important that we 
continue to foster a very close working relationship with both the 
authorizing and appropriating defense committees.
    Question. Do you believe that the current practice of a separate 
liaison between the Appropriations Committees, the Office of the 
Secretary of Defense and the budget offices of the military services 
should be continued or should all legislative affairs activities be 
consolidated under the Assistant Secretary of Defense for Legislative 
Affairs?
    Answer. If confirmed, I will coordinate closely with the 
Comptroller and with all oversight committees to ensure the Department 
speaks with one voice before Congress.
    Question. What do you anticipate would be your relationship with 
the Appropriations Committees?
    Answer. Policy issues of importance to the Department require the 
support of both the authorization and appropriations committees. If 
confirmed, it will be my responsibility to ensure that we are 
responsive to the needs of all of our oversight committees.
               providing congress with timely information
    Question. What steps would you take to ensure that the appropriate 
congressional officials and committees are provided with timely 
notification and relevant information concerning international crises, 
the use of United States military forces, and incidents involving 
Department of Defense personnel and equipment?
    Answer. If confirmed, I will ensure that this continues to be a top 
priority for the Department. It is critical that timely, accurate, and 
relevant information is provided to members, committees, and staff.
       monitoring legislation affecting the department of defense
    Question. The Committees on Armed Services of the Senate and the 
House of Representatives have principal oversight responsibility in 
Congress for Department of Defense activities. However, there is a 
great deal of legislation considered by other congressional committees 
that specifically affects the Department of Defense or that affects 
government agencies in general and which may have a substantial impact 
on the Department of Defense.
    What steps would you establish to ensure that you and the Secretary 
of Defense are kept informed of all legislation that may have an impact 
on the Department of Defense?
    Answer. It is essential that we focus not only on the legislative 
priorities of our oversight committees, but also on relevant 
legislation considered by other congressional committees. We must work 
closely with our counterparts at the State Department, the National 
Security Council, and other federal agencies to ensure that defense-
related issues and concerns are fully addressed. If confirmed, I will 
ensure that my staff members maintain a network of contacts on all 
congressional committees and strive to learn of all legislative 
proposals that could impact the Department.
    Question. If confirmed, would you ensure that the Committees on 
Armed Services are alerted to all legislative matters of interest to 
the Department in a timely manner?
    Answer. Yes.
                              nominations
    Question. What role would you, as Assistant Secretary of Defense 
for Legislative Affairs, expect to play in the military and civilian 
nomination process?
    Answer. If confirmed, I would expect to play a primary role in the 
civilian nomination process, ensuring that all nominees are prepared to 
meet the many requirements of the confirmation process. In the military 
nomination process, I would expect to work closely with the Chairman of 
the Joint Chiefs and the services in preparing key military nominees 
for confirmation.
           management of the congressional fellowship program
    Question. What are your personal views on the value and current 
management of the legislative fellowship program within the Department 
of Defense? Specifically, in your opinion are legislative fellowships 
awarded to deserving military or civilian personnel?
    Answer. While my personal knowledge of this subject is limited, it 
is my understanding that the legislative fellowship program has proven 
to be a valuable and effective vehicle for educating Department 
personnel on the workings of the legislative branch. Competition for 
these positions is keen, and it is my impression that these fellowships 
are awarded to fully deserving military and civilian personnel. If 
confirmed, I will obtain more information about the legislative 
fellowship program to ensure my office has visibility in its operation.
    Question. As Assistant Secretary of Defense for Legislative 
Affairs, would you have any part in the selection of military or 
civilian personnel to be a legislative fellow?
    Answer. No. I have been advised that selection of the personnel is 
a service responsibility, and that oversight of the program is provided 
by the Assistant Secretary of Defense for Force Management Policy (ASD/
FMP).
    Question. As Assistant Secretary of Defense for Legislative 
Affairs, would you have any part in the utilization assignments for 
military and civilian fellows upon completion of their fellowship?
    Answer. No. This also is a responsibility of the respective 
services, taking into account the necessary professional development of 
each individual completing the fellowship as well as the needs of the 
services.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Legislative Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                        department coordination
    1. Senator Thurmond. One of the more significant challenges of your 
office is to ensure that the Departunent speaks with one voice on major 
policy issues. How do you plan to address this vexing problem?
    Mr. Moore. First, I plan to meet regularly with representatives of 
all components of the Department to ensure full coordination on all 
legislative matters. It will continue to be our goal that all 
legislative affairs activities of the Department are coordinated 
through the OSD Legislative Affairs Office. Within the interagency 
coordination process, we must work closely with our counterparts at the 
State Department, the National Security Council, and other federal 
agencies to ensure that our defense-related issues and concerns are 
fully addressed. In general, one of the greatest challenges we face is 
to ensure the continued flow of timely, accurate, and relevant 
information to Congress on all defense-related issues. As we complete 
our strategic review and consider the steps necessary to reshape our 
military force to meet the challenges of the 21st century, it is 
essential that the administration and Department remain fully engaged 
with Congress and that we continue to forge a bipartisan consensus on 
defense matters and national security issues. It is also essential that 
we focus not only on the legislative priorities of our oversight 
committees, but also on legislation considered by other congressional 
committees and members.

                 congress and the department of defense
    2. Senator Thurmond. Your long and distinguished career serving 
both Congress and the executive branch, allowed you to be a witness to 
the changes in the relationship between Congress and the Department of 
Defense.
    What in your judgment had been the most significant change in this 
relationship since you first joined Senator Russell's office in 1966? 
How does this change affect your role as ASD for Legislative Affairs, 
if you are confirmed for that position?
    Mr. Moore. We are now in an information age where news is available 
around the clock. Given the tremendous challenge we face in staying 
ahead of this expansive media coverage, it has become even more 
important for the Department to keep open the lines of communication 
with Congress at all levels. Our relationship with Congress is based on 
a continuing dialogue, and effectively managing the timely flow of 
information is essential. For example, I recognize the importance of 
using the Internet to dispense and to obtain information, and I intend 
to work very hard to bring the Office of Legislative Affairs into the 
21st century in that regard. Despite our many technological advances, 
however, our guiding principle in the Department of keeping Congress 
well-informed in a timely manner has not changed.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                            strategic review
    3. Senator Lieberman. Upon the completion of the strategic review, 
what proposals do you have to help relay those recommendations?
    Mr. Moore. The Defense review is an iterative process that will be 
ongoing. The findings and recommendations of the various elements of 
the Defense review will serve as road maps for key issues that must be 
considered during the QDR process, and subsequently, in the development 
of future budget requests. It is important that we communicate the 
results of our Defense review in a timely manner when information is 
available. For example, we will look to schedule member and staff 
briefings when the various elements of the review have been completed. 
Throughout this process, I will work closely with the Secretary, Deputy 
Secretary, and senior leadership in the Department to ensure that we 
keep open the lines of communication with Congress.

                           nomination process
    4. Senator Lieberman. Do you plan to recommend changes to the 
nomination process?
    Mr. Moore. As Assistant Secretary of Defense for Legislative 
Affairs, I will do everything I can to ensure that all of the 
President's nominees for positions in the Department of Defense move 
through the confirmation process as expeditiously as possible. At this 
point, it would be premature for me to consider any recommendations for 
changes to the nomination process.

                       legislative fellow program
    5. Senator Lieberman. What is your opinion of the legislative 
fellow program and will you pursue changes to the program?
    Mr. Moore. While my personal knowledge of this subject is limited, 
it is my understanding that the legislative fellowship program has 
proven to be a valuable and effective vehicle for educating Department 
personnel on the workings of the legislative branch. Competition for 
these positions is keen, and it is my impression that these fellowships 
are awarded to fully deserving military and civilian personnel. It is 
my understanding that selection of the personnel is a service 
responsibility, and that the Assistant Secretary of Defense for Force 
Management Policy (ASD/FMP) provides oversight of the program. I will 
make it a priority to obtain more information about the legislative 
fellowship program to ensure my office has visibility in its operation. 
At this point, it would be premature for me to consider any possible 
changes to the program.
                                 ______
                                 
    [The nomination reference of Powell A. Moore follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 23, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Powell A. Moore, of Georgia, to be an Assistant Secretary of 
Defense, vice John K. Veroneau.
                                 ______
                                 
    [The biographical sketch of Powell A. Moore, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Powell A. Moore

    Powell A. Moore is Chief of Staff for Senator Fred D. 
Thompson, Republican of Tennessee and Chairman of the Senate 
Committee on Governmental Affairs. He has held this position 
since September 1, 1998.
    Active in public policy affairs in Washington for more than 
30 years, Moore is a former Assistant Secretary of State for 
Intergovernmental and Legislative Affairs under President 
Reagan and has served on the White House staff under Presidents 
Nixon, Ford, and Reagan.
    Moore began his Washington career in 1966 as Press 
Secretary to Senator Richard B. Russell of Georgia and served 
in this capacity until Senator Russell's death in January 1971. 
He then joined the Nixon Administration, first serving as 
Deputy Director of Public Information for the Department of 
Justice and later as a member of the White House Legislative 
Affairs staff.
    He left the White House in 1975, and for the subsequent 6 
years, engaged in government relations and legislative affairs 
consulting, representing a variety of corporations and 
associations.
    Moore returned to the White House in January 1981 on the 
day following Ronald Reagan's inauguration as the 40th 
President of the United States. As Deputy Assistant to the 
President for Legislative Affairs during 1981, he managed the 
Senate component of the legislative affairs office at the White 
House.
    In January 1982, President Reagan nominated him to be 
Assistant Secretary of State for Intergovernmental and 
Legislative Affairs, and he was confirmed by the Senate on 
February 4, 1982. As Assistant Secretary of State, Moore 
traveled with congressional delegations to more than 35 
countries and participated in meetings between U.S. 
congressional leaders and 19 heads of state.
    During his service in two key legislative affairs positions 
of the Reagan administration, he assisted President Reagan in 
realizing a number of significant legislative achievements. He 
managed the Senate confirmation strategy for several of 
President Reagan's high level nominations, including the 
historic nomination of Associate Justice Sandra Day O'Connor.
    Moore worked on the presidential campaign staffs of Richard 
Nixon in 1972, Gerald Ford in 1976, and Ronald Reagan in 1980. 
He also worked as a volunteer for the presidential campaigns of 
George Bush in 1988 and 1992, Bob Dole in 1996 and George W. 
Bush in 2000.
    After leaving government in late 1983 and before returning 
in 1998, Moore advised and represented business interests as 
Vice President for Legislative Affairs of the Lockheed 
Corporation and as a consultant. In this capacity, he compiled 
a substantial list of measurable public policy achievements on 
behalf of a wide variety of clients.
    Moore was born in Milledgeville, Georgia, on January 5, 
1938. He graduated from the University of Georgia in Athens in 
1959 after attending preparatory school at Georgia Military 
College in Milledgeville. The University of Georgia's Henry W. 
Grady School of Journalism selected him as its Outstanding 
Alumnus for 1985, and he was similarly honored by Georgia 
Military College in 1986. After graduation, he was commissioned 
as an officer in the United States Army where he served for 
3\1/2\ years with tours in Baumholder, Germany, and Fort 
Benning, Georgia. After leaving the Army and before coming to 
Washington, he worked as a weekly newspaper editor in Georgia.
    Moore lives in Alexandria, Virginia and has a daughter, 
Mrs. Frances M. Preston of Greensboro, North Carolina; a son, 
Allen Moore of Alexandria, Virginia; and three grandsons.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Powell A. 
Moore in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Powell Allen Moore.

    2. Position to which nominated:
    Assistant Secretary of Defense for Legislative Affairs.

    3. Date of nomination:
    April 23, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 5, 1938; Milledgeville, Georgia.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced.

    7. Names and ages of children:
    Frances Van Moore Preston, age 34 (born on April 19, 1967); Powell 
Allen Moore, Junior, age 31 (born on December 6, 1969).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Georgia Military College (high school division), Milledgeville, 
Georgia from September 1951 until June 1955.
    Georgia Military College (junior college division), Milledgeville, 
Georgia from September 1955 until June 1956.
    Georgia College, Milledgeville, Georgia from June 1956 until August 
1956.
    University of Georgia, Athens, Georgia from September 1957 until 
March 1959; Bachelor of Arts degree in Journalism, June 1959.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    June 1989 until February 1993, self employed consultant, 1133 
Connecticut Avenue, NW., Washington, DC.
    February 1993 until February 1998, Senior Principal and Managing 
Director, Capitoline International Group, 1615 L Street, NW., 
Washington, DC 20036.
    February 1998 until August 1998, Senior Vice President, Global USA, 
Inc., 2121 K Street, NW., Washington, DC 20037.
    September 1998 until present, Chief of Staff, Office of Senator 
Fred Thompson, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    March 1959 until August 1962, Infantry Officer, United States Army, 
Fort Benning, Georgia and Baumholder, Germany.
    October 1966 until March 1971, Press Secretary to Senator Richard 
B. Russell, Washington, DC.
    March 1971 until May 1972, Deputy Director of Public Information, 
Department of Justice, Washington, DC.
    March 1973 until January 1975, Deputy Special Assistant to the 
President, The White House, Washington, DC.
    January 1981 until February 1982, Deputy Assistant to the 
President, The White House, Washington, DC.
    February 1982 until August 1983, Assistant Secretary of State for 
Legislative Affairs, Washington, DC.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Metropolitan Club of Washington, DC; Belle Haven Country Club, 
Alexandria, Virginia; 116 Club, Washington, DC.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    August 1996, Official Proceedings Staff, Republican National 
Convention, San Diego, California.
    September 1, 1998 to present, Political Fund Designee, Tennesseans 
for Thompson, Nashville, Tennessee/Washington, DC.
    February 2000, Volunteer Surrogate Program Manager, McCain 2000 
Committee, Alexandria, Virginia.
    August 2000, Official Proceedings Staff, Republican National 
Committee, Philadelphia, Pennsylvania.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    03/11/96 - Isakson for Senate Committee - $500.00.
    04/17/96 - Republican Network to Elect Women (RENEW) - $250.00.
    04/22/96 - Helms for Senate Committee - $500.00.
    04/22/96 - Congressman Chris Cox Committee - $250.00.
    05/02/96 - Re-elect Thurmond Committee - $1,000.00.
    05/02/96 - Friends of John Warner 96 Committee - $1,000.00.
    06/12/96 - Chambliss for Congress Committee - $500.00.
    07/12/96 - Sheila Frahm for U.S. Senate Committee - $250.00.
    07/18/96 - Coverdell Good Government Committee - $250.00.
    09/09/96 - Bereuter for Congress Committee - $250.00.
    09/11/96 - Guy Milner for Senate Committee - $500.00.
    10/01/97 - Friends of Jim Bunning Committee - $250.00.
    03/03/97 - The Tom Sawyer Committee - $100.00.
    03/05/97 - Craig for U.S. Senate Committee - $500.00.
    05/15/97 - Coverdell Good Government Committee - $500.00.
    10/01/97 - Coverdell Good Government Committee - $250.00.
    10/20/97 - Republican Party of Virginia - $150.00.
    10/30/97 - Coverdell Good Government Committee - $250.00.
    11/14/97 - Stevens for Senate Committee - $250.00.
    12/04/97 - Rustoven for Senate Committee - $250.00.
    05/07/98 - Bob Kerrey for U.S. Senate Committee - $500.00.
    06/22/98 - Northern Lights Political Action Committee - $250.00.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    To the best of my recollection, everything I have written since 
coming to Washington more than 34 years ago has been written in the 
name of clients or public officials for whom I worked. I do not recall 
anything that has been published in my name. When I was a young man in 
my mid-twenties, more than 36 years ago, I was a weekly newspaper 
editor in Milledgeville, Georgia. In this capacity, I routinely wrote 
news articles, editorials, and a weekly column, but I do not have 
practical access to these writings.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    June 6, 1998 - Commencement Address - Georgia Military College, 
Milledgeville, Georgia. [Nominee responded and the information is 
contained in the committee's executive files.]
    August 11, 1999 - U.S. Capitol Historical Society, Washington, DC, 
Subject: Richard B. Russell as part of a series on the Members of 
Congress for whom the six Congressional office buildings are named. 
[Nominee responded and the information is contained in the committee's 
executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Powell A. Moore.
    This 23rd day of April, 2001.

    [The nomination of Powell A. Moore was reported to the 
Senate by Senator John Warner on May 1, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 1, 2001.]


                      PENDING MILITARY NOMINATIONS

                              ----------                              


                          TUESDAY, MAY 1, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman of the committee) presiding.
    Committee members present: Senators Warner, Inhofe, 
Santorum, Roberts, Allard, Sessions, Collins, Bunning, Levin, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, and 
Dayton.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Anita R. 
Raiford, deputy chief clerk; and Scott W. Stucky, general 
counsel.
    Professional staff members present: Charles S. Abell, 
Charles W. Alsup, John R. Barnes, Ambrose R. Hock, George W. 
Lauffer, Patricia L. Lewis, Thomas L. MacKenzie, and Richard F. 
Walsh.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Peter K. Levine, minority counsel; 
Creighton Greene, professional staff member; and Michael J. 
McCord, professional staff member.
    Staff assistants present: Beth Ann Barozie, Thomas C. 
Moore, Jennifer L. Naccari, and Michele A. Traficante.
    Committee members' assistants present: Dino L. Carluccio, 
assistant to Senator Smith; Robert Alan McCurry, assistant to 
Senator Roberts; Douglas Flanders and Charles Cogar, assistants 
to Senator Allard; Arch Galloway II and Scott Douglass, 
assistants to Senator Sessions; Kristine Fauser, assistant to 
Senator Collins; Derek Maurer, assistant to Senator Bunning; 
Menda S. Fife, assistant to Senator Kennedy; Barry Gene (B.G.) 
Wright, assistant to Senator Byrd; Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; and 
Brady King, assistant to Senator Dayton.
    Chairman Warner. I would like the committee to consider the 
following nominations for voting and hopefully sending these 
nominations to the floor.
    First, Edward C. Aldridge, to be Under Secretary of Defense 
for Acquisition and Technology; Dr. Dov Zackheim, to be Under 
Secretary of Defense, Comptroller; Charles S. Abell, former 
member of our committee staff, to be Assistant Secretary of 
Defense for Force Management Policy; Ms. Victoria Clark, to be 
Assistant Secretary of Defense for Public Affairs; William J. 
Haynes II, to be General Counsel to the Department of Defense; 
and Powell A. Moore, to be Assistant Secretary of Defense for 
Legislative Affairs.
    I advise the committee that we have had hearings on all of 
them. The record has been before the committee for several 
days. No questions have been raised by any committee member or 
anyone else.
    We are also ready to consider 773 pending military 
nominations. These nominations have been before the committee 
the required length of time. No objection has been raised 
regarding them.
    I ask unanimous consent that we consider these nominations 
en bloc.
    I ask first, Senator Levin, do you have any comment?
    Senator Levin. No. I would support that and so move.
    Senator Bunning. Mr. Chairman?
    Chairman Warner. Yes.
    Senator Bunning. Mr. Chairman, I would just like to inquire 
of the 773 military nominations if we have had any adverse 
material submitted with any of them.
    Chairman Warner. Not the 773, but there is one individual 
that was a part of the block submitted by the President that 
has been deleted for further consideration by the committee.
    Senator Bunning. So, all 773 have no adverse information?
    Chairman Warner. That is correct.
    Senator Bunning. OK, thank you.
    Chairman Warner. Any further comment by members of the 
committee?
    [No response.]
    If not, all those in favor, say aye.
    [A chorus of ayes.]
    Opposed?
    [No response.]
    The ayes have it. The nominations are approved by the 
committee. They will be sent to the floor. I will be meeting 
with the Majority Leader in the hopes that we can schedule 
these at an early date.
    I thank you.
    [Nominations referred to follow:]

    1. In the Army there are 482 appointments to the grade of 
colonel (list begins with Donald M. Adkins) (Reference No. 
160).
    2. Rear Admiral Malcolm I. Fages, USN to be appointed to 
the grade of vice admiral (Reference No. 206).
    3. In the USAF there are 55 appointments to the grade of 
colonel (list begins with Gregory O. Allen) (Reference No. 
207).
    4. In the ARNG there are 3 appointments to the grade of 
colonel (list begins with James R. Guise) (Reference No. 208).
    5. In the USA there are 2 appointments to the grade of 
colonel (list begins with Michael Child) (Reference No. 209).
    6. In the Marine Corps Reserve there are 5 appointments to 
the grade of colonel (list begins with Walter T. Ellingson) 
(Reference No. 210).
    7. In the Naval Reserve there are 2 appointments to the 
grade of captain (list begins with Manuel E. R. Alsina) 
(Reference No. 211).
    8. Rear Admiral Keith W. Lippert, USN to be appointed to 
the grade of vice admiral (Reference No. 218).
    9. In the USAF there are 4 appointments to the grade of 
colonel and below (list begins with Steven D. Carey) (Reference 
No. 224).
    10. In the ARNG there is 1 appointment to the grade of 
colonel (Joe L. Smothers) (Reference No. 225).
    11. In the ARNG there are 9 appointments to the grade of 
colonel (list begins with Louis A. Abbenante) (Reference No. 
226).
    12. In the USMC there are 15 appointments to the grade of 
lieutenant colonel (list begins with Dennis G. Adams) 
(Reference No. 227).
    13. In the USMC there are 33 appointments to the grade of 
major (list begins with Charles E. Brown) (Reference No. 228).
    14. In the Naval Reserves there is 1 appointment to the 
grade of captain (David C. Barton) (Reference No. 229).
    15. In the USN there is 1 appointment to the grade of 
lieutenant commander (James W. Hudson) (Reference No. 230).
    16. In the USN there is 1 appointment to the grade of 
lieutenant commander (Sheila C. Hecht) (Reference No. 231).
    17. In the USN there is 1 appointment to the grade of 
lieutenant commander (Paul R. Faneuf) (Reference No. 232).
    18. In the USN there are 2 appointments to the grade of 
lieutenant commander (list begins with Daniel L. Bower) 
(Reference No. 233).
    19. In the USN there are 9 appointments to the grade of 
lieutenant (list begins with Kyle P. Durand) (Reference No. 
234).
    20. In the USN there are 17 appointments to the grade of 
captain and below (list begins with Eduardo C. Cuison) 
(Reference No. 235).
    21. In the USA there are 121 appointments to the grade of 
colonel and below (list begins with Margretta M. Diemer) 
(Reference No. 244).
    22. Major General Donald A. Lamontagne, USAF to be 
appointed to the grade of lieutenant general (Reference No. 
252).
    23. Lieutenant General Lance W. Lord, USAF to be 
reappointed to the grade of lieutenant general (Reference No. 
253).
    24. Major General Brian A. Arnold, USAF to be appointed to 
the grade of lieutenant general (Reference No. 254).
    25. Major General Timothy A. Kinnan, USAF to be appointed 
to the grade of lieutenant general (Reference No. 255).
    26. Major General Richard V. Reynolds, USAF to be appointed 
to the grade of lieutenant general (Reference No. 256).
    27. Lieutenant General William J. Begert, USAF to be 
appointed to the grade of general (Reference No. 257).
    28. Major General Garry L. Parks, USMC to be appointed to 
the grade of lieutenant general (Reference No. 259).

    TOTAL: 773

    [The nomination reference of Edward C. Aldridge follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 23, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Edward C. Aldridge, of Virginia, to be Under Secretary of Defense 
for Acquisition and Technology, vice Jacques Gansler.
                                 ______
                                 
    [The nomination reference of Dr. Dov S. Zakheim follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 13, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. Dov S. Zakheim, of Maryland, to be Under Secretary of Defense 
(Comptroller), vice William J. Lynn III.
                                 ______
                                 
    [The nomination reference of Charles S. Abell follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 29, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Charles S. Abell, of Virginia, to be an Assistant Secretary of 
Defense, vice Alphonso Maldon, Jr.
                                 ______
                                 
    [The nomination reference of Victoria Clarke follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 5, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Victoria Clarke, of Maryland, to be an Assistant Secretary of 
Defense, vice Kenneth H. Bacon.
                                 ______
                                 
    [The nomination reference of William J. Haynes II follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 23, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William J. Haynes II, of Tennessee, to be General Counsel of the 
Department of Defense, vice Douglas A. Dworkin.
                                 ______
                                 
    [The nomination reference of Powell A. Moore follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 23, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Powell A. Moore, of Georgia, to be an Assistant Secretary of 
Defense, vice John K. Veroneau.

    [Whereupon, at 10:22 a.m., the committee recessed, to 
resume in open public hearing.]


NOMINATIONS OF DR. DAVID S.C. CHU TO BE UNDER SECRETARY OF DEFENSE FOR 
 PERSONNEL AND READINESS; THOMAS E. WHITE, JR., TO BE SECRETARY OF THE 
ARMY; GORDON R. ENGLAND TO BE SECRETARY OF THE NAVY; DR. JAMES G. ROCHE 
 TO BE SECRETARY OF THE AIR FORCE; AND ALFRED V. RASCON TO BE DIRECTOR 
                          OF SELECTIVE SERVICE

                              ----------                              


                         THURSDAY, MAY 10, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-342, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Smith, 
Inhofe, Allard, Hutchinson, Collins, Levin, Cleland, Bill 
Nelson, and Carnahan.
    Other Senators present: Senators Kay Bailey Hutchison, Phil 
Gramm, Paul Sarbanes, and Barbara Mikulski.
    Also present: Representative Roscoe Bartlett.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; and Scott W. 
Stucky, general counsel.
    Professional staff members present: George W. Lauffer, 
Patricia L. Lewis, Thomas L. MacKenzie, Cord A. Sterling, and 
Richard F. Walsh.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Madelyn R. Creedon, minority 
counsel; Gerald J. Leeling, minority counsel; Peter K. Levine, 
minority counsel; Daniel J. Cox, Jr., professional staff 
member; Creighton Greene, professional staff member; and 
Michael J. McCord, professional staff member.
    Staff assistants present: Kristi M. Freddo, Suzanne K.L. 
Ross, and Michele A. Traficante.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; Margaret Hemenway, assistant to 
Senator Smith; John A. Bonsell, assistant to Senator Inhofe; 
George M. Bernier III, assistant to Senator Santorum; Michael 
P. Ralsky, assistant to Senator Hutchinson; Scott Douglass, 
assistant to Senator Sessions; Kristine Fauser, assistant to 
Senator Collins; David Young, assistant to Senator Bunning; 
Andrew Vanlandingham, assistant to Senator Cleland; Elizabeth 
King, assistant to Senator Reed; and Peter A. Contostavlos, 
assistant to Senator Bill Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Senator Inhofe. Mr. Chairman, I chair the Transportation 
and Infrastructure Committee, one of the committees you used to 
chair, and we had already set for this exact time our 
reauthorization hearing, so there are several who will be going 
back and forth. We regret it. I just wanted to mention that.
    Chairman Warner. We also apologize to many who desired to 
be in this hearing room. We do the best we can here in the 
Senate, and due to the number of hearings we are having, we 
were unable to get a larger room. Nevertheless, members of the 
committee welcome this distinguished group of nominees. I have 
visited with all and congratulations are going to our President 
and Secretary of Defense.
    We have Dr. David Chu, who has been nominated to be Under 
Secretary of Defense for Personnel and Readiness; Thomas E. 
White, Jr., to be Secretary of the Army; Gordon R. England, to 
be Secretary of the Navy; Dr. James G. Roche, to be Secretary 
of the Air Force; and Alfred V. Rascon, to be Director of the 
Selective Service. We welcome you all.
    Dr. Chu, I understand you have here members of your family. 
Would you kindly introduce them and ask them to stand up, 
please.
    Dr. Chu. Thank you, Mr. Chairman. My wife; our daughter, 
Carolyn; and our son, Jonathan.
    Chairman Warner. We welcome you this morning. These are 
very important hearings. They are landmark events not only in 
the lives of nominees, but the families. Families are very much 
a part of the team that works with the Secretary of Defense. I 
had breakfast with the Secretary earlier this morning, and he 
is full of energy. He suggested I get back here in time to get 
started. I am anxious to have you join him.
    Mr. White, I understand that you have family here, too, if 
you would be kind enough to introduce them.
    Mr. White. Thank you, Mr. Chairman. I am joined by my wife, 
Susan, and our daughter, Kate.
    Chairman Warner. Mr. England, I understand you have your 
wife.
    Mr. England. Yes, sir, I do. I have my wife, Dottie, with 
me. Thank you, sir.
    Chairman Warner. We welcome you.
    Dr. Roche.
    Dr. Roche. Thank you, Mr. Chairman. I have my bride, Diane, 
and our daughter, Heather. Thank you, sir.
    Chairman Warner. Mr. Rascon.
    Mr. Rascon. Sir, I have my wife, Carol; my daughter, 
Amanda; and my son, Alan.
    Chairman Warner. I am going to put the balance of my 
statement into the record, and following my statement, the 
prepared statements of Senators Thurmond, Santorum, and Allard. 
We want to move here quickly this morning. Generally just a 
summary of the distinguished biographies that each of you have 
and bring to bear in these positions.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    The committee will come to order.
    The committee meets today to receive testimony concerning five very 
important nominations.
    I am pleased that we have before the committee this morning the 
nominees to serve as the civilian leaders of all three military 
departments an important part of the fine ``board of directors'' 
Secretary Rumsfeld is assembling to help him run the Department. We are 
also pleased to have two nominees for other key positions. Assuming 
Senate confirmation--which I support--you will be joining an excellent, 
experienced team at the Pentagon.
    Dr. David S.C. Chu has been nominated to be Under Secretary of 
Defense for Personnel and Readiness, Thomas E. White, Jr., to be 
Secretary of the Army, Gordon R. England to be Secretary of the Navy, 
Dr. James G. Roche to be Secretary of the Air Force, and Alfred V. 
Rascon to be Director of Selective Service.
    We welcome the nominees and their families.
    Dr. Chu, I understand that your wife, Dr. Laura Tosi, your daughter 
Carolyn, and your son Jonathan are here with you today.
    Mr. White, I understand that your wife Susan and daughter Katie are 
here with you today.
    Mr. England, I understand that your wife Dottie is with you today.
    Dr. Roche, I understand that your wife Diane and daughter Heather 
are here with you today.
    Mr. Rascon, I understand your wife Carol Richardson-Rascon, 
daughter Amanda, and son Alan are here with you. I am also informed 
today is Alan's 10th birthday, so please accept my congratulations.
    Family support is critical to the success of individuals in senior 
positions in our government and we appreciate the support and 
sacrifices of the families of these distinguished nominees.
    Dr. Chu you are returning for a second tour at the Pentagon. Dr. 
Chu began his public service career as the Director of Program Analysis 
and Evaluation in the Office of the Secretary of Defense during the 
Reagan administration. He was then appointed Assistant Secretary of 
Defense for Program Analysis and Evaluation by President George Bush 
Senior. Dr. Chu is currently the Vice President of RAND's Army Research 
Division and Director of the Arroyo Center. He has had a distinguished 
career in both the public and private sector.
    Thomas E. White, Jr., also possesses both a notable private sector 
career and an equally distinguished Army career, which began as a 
commissioned officer upon graduation from West Point in 1967. He then 
went on to serve his country in uniform for 23 years, including 2 years 
of service in combat operations in Vietnam. He retired as a Brigadier 
General in 1990. He is currently serving as the Vice Chairman at Enron 
Energy Services.
    Gordon R. England has had a distinguished career in business, 
beginning as an engineer working on the Gemini space program with the 
Honeywell Corporation. He then held several important positions with 
the General Dynamics and Lockheed Martin Corporations working on 
programs vital to the armed services. He has served as a member of the 
Defense Science Board and on the USO's Board of Governors. Mr. England 
recently departed the position of Executive Vice President of General 
Dynamics, where he served for 4 years.
    Dr. James G. Roche began his career with 23 years of active duty 
service in the Navy. He commanded the destroyer U.S.S. Buchanan (DDG-
14), and held senior policy positions within the Departments of Defense 
and State prior to retiring in 1983 at the rank of captain. I recall 
with pleasure his service on this committee as Minority Staff Director 
under Senator Scoop Jackson. He is currently the Corporate Vice 
President and President of the Electronic Sensors and Systems Sector 
with the Northrop Grumman Corporation. I am pleased such a 
distinguished individual would once again answer the call to public 
service.
    I extend a particularly warm welcome to our final nominee, Alfred 
V. Rascon, a recipient of the Congressional Medal of Honor. In 1966, as 
an Army medic, ``Doc'' Rascon demonstrated extraordinary valor in 
saving the lives of his fellow soldiers during combat in Long Khanh, 
Vietnam. It is a testament to his bravery that his former platoon 
mates, upon hearing that Mr. Rascon's nomination for the Medal of Honor 
had been lost, doggedly pursued it to fruition. He has subsequently had 
a distinguished career serving his country as a Special Agent with the 
Immigration and Naturalization Service and as an Intelligence 
Operations Specialist with the Drug Enforcement Agency. Most recently 
he served as Inspector General of the Selective Service.
    Our nominees have a wealth of experience, and I believe each of 
them will excel in the positions to which they have been nominated. We 
welcome our nominees and their families and look forward to their 
comments and responses today.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman.
    Mr. Chairman, I join you and the ranking member, Senator Levin, in 
welcoming our distinguished group of nominees. I am especially pleased 
that we are considering the nominations to fill the positions of the 
service secretaries. As the Department is finalizing the budget for the 
fiscal year 2002, it is essential that a secretary that can speak with 
total authority represents the service at the bargaining table.
    Dr. Chu, I want to welcome you back before the committee. You have 
a distinguished record and have been a voice to be reckoned with during 
your prior tour in the Department of Defense. I hope you will not shirk 
from speaking out after you are confirmed to the important position of 
Under Secretary of Defense for Personnel and Readiness.
    Dr. Roche, Mr. England, Mr. White, I had the pleasure of meeting 
with each of you and want to reemphasize my support for your 
nominations. You will be taking the helm of your respective services at 
the critical juncture during which President Bush and Secretary 
Rumsfeld will transform our National Security Strategy and military 
services to meet the challenges of an ever-changing world. I am 
confident you will instill a new era of doing business within the 
Department and reverse the declining readiness and quality of life.
    Mr. Rascon, the Selective Service System is the only time-proven 
means of mobilizing this Nation's manpower for a significant crisis. I 
view the Selective Service as the country's third tier of defense after 
the volunteer Active and Reserve Forces. Your challenge will be no less 
great than that of the service secretaries.
    Mr. Chairman, I join you in congratulating each of our nominees. I 
also want to thank them for their willingness to take on the challenges 
of the position for which they have been nominated. More importantly, I 
want to express my appreciation for both the professional and personal 
sacrifices they are making to serve our Nation and the men and women 
who proudly wear the uniforms of the United States military.
    Thank you, Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Rick Santorum
    Chairman Warner, thank you for convening this important hearing. As 
our committee has heard from both the Secretary of Defense and the 
Deputy Secretary of Defense, the confirmation process has been 
painstakingly slow. Today's hearing will go a long way towards 
providing top-flight civilian leadership in key positions in the 
Pentagon.
    As we have heard, President Bush and Secretary of Defense Rumsfeld 
have argued that the military must be more efficient in buying weapons 
and providing health care, housing and other services to its personnel. 
For that reason, the President's nomination of several former business 
executives for positions within the Pentagon is widely viewed as a 
first step towards new management policies.
    This philosophy is apparent with the nomination of Jim Roche to be 
Secretary of the Air Force, Gordon England to be Secretary of the Navy, 
and Thomas White to be Secretary of the Army. As the Chairman of the 
Airland Subcommittee, I have frequently heard that the Pentagon doesn't 
understand or appreciate the needs of our defense industrial base. Each 
of the service secretary nominees has experience in the defense 
industry and is well-equipped to work with our industry as we begin the 
process of transforming our military capabilities to meet 21st century 
threats.
    While not members of industry, Dr. Chu and Mr. Rascon have 
impressive public sector service records and are by all accounts well-
qualified for the positions to which they have been nominated.
    I look forward to a productive working relationship with each of 
today's nominees.
                                 ______
                                 
               Prepared Statement by Senator Wayne Allard
    Thank you Mr. Chairman.
    I want to thank all of you for coming here today. The duties that 
you have agreed to accept responsibility for are very important to the 
United States and I appreciate your willingness to take them on. I look 
forward to hearing your perception of the current readiness and 
relevance of our forces and hearing your thoughts on updating and 
improving them.
    As the Strategic Subcommittee Chairman, I am particularly 
interested in your concerns as they relate to our strategic forces and 
their ability to defend the ``homeland'' and support the CINCs. 
    Every time my pager goes off I am reminded of the importance of 
space operations to our economy and to the defense of this great 
nation. Earlier this week Secretary Rumsfeld provided us with his 
assessment of the report of the Commission to Assess United States 
National Security Space Management and Organization. I am very pleased 
with Secretary Rumsfeld's recommendations. Many of these 
recommendations were encouraged by the NRO Commission and Space 
Commission and stressed by me during his confirmation hearing. He is 
recognizing the long-term security needs of our Nation and unlike some 
Senators I think this is the smart thing to do.
    So, gentlemen, I thank you for your willingness to serve, and I 
look forward to hearing what you have to say.

    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, I am going to put my 
statements about each of our nominees into the record as well. 
They are well-qualified, and I look forward to having them at 
this hearing. I also want to add my thanks to their families 
for the contributions that they will be making to the service 
of each of these nominees. I believe also if I could just say 
one additional quick comment that Mr. Rascon is a Medal of 
Honor winner, is that correct?
    Mr. Rascon. Yes, sir.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Mr. Chairman, I join you in welcoming our nominees to the committee 
this morning. I also want to extend a warm welcome to their families 
who are with them today.
    Dr. Chu, nominated to be the Under Secretary of Defense for 
Personnel and Readiness, comes to us from Rand. Rand is known for high-
quality, objective research on national security issues. Dr. Chu, once 
you are confirmed, you change from the position of making 
recommendations in a more or less academic environment to a position of 
putting those recommendations into practice.
    Mr. White comes to us from the Enron Corporation. Fortune magazine 
has named Enron ``America's Most Innovative Company'' for 6 consecutive 
years. Mr. White, I hope that you bring that same innovation to the 
Army as you lead it through its transformation. I also want to 
congratulate Mr. White for having the good sense to be born in Detroit, 
Michigan. It is always nice to see native Michiganders appointed to 
high positions.
    Mr. England comes to us from the General Dynamics Corporation, 
where he recently served as vice president and where he was responsible 
for two major sectors of the corporation. His biography reflects his 
steady hand at managing many different programs. Mr. England, your 
experience at managing these diverse programs will serve you well as 
you manage the air, land, and sea functions of the Navy.
    Dr. Roche comes to us from Northrop Grumman. He has quite a list of 
notable accomplishments, culminating in his service as corporate vice 
president and president, Electronic Sensors and Systems Sector of 
Northrop Grumman. I'm convinced that the single most important 
experience that prepared him for his positions of great responsibility 
was his service as the Democratic Staff Director for this committee, 
where he was trained by Senators Scoop Jackson and Sam Nunn.
    Mr. Rascon recently retired as the Inspector General of the 
Selective Service System. This service should give him great insight 
into the responsibilities of the position for which he has been 
nominated. I would be remiss if I didn't mention that Mr. Rascon has 
been awarded the Medal of Honor for acts of valor as an Army medic in 
Vietnam. Mr. Rascon, it is indeed an honor to be here with you today.
    Mr. Chairman, we have five well-qualified candidates for important 
positions that the President is anxious to fill. I look forward to 
hearing from our nominees and acting on their nominations in the near 
future. Thank you.

    Senator Levin. I just probably shouldn't say anything about 
any of these nominees because I have good things to say about 
all of them. It is always an honor to be in the presence of 
someone who has shown the kind of extraordinary valor that is 
reflected in the Medal of Honor.
    Mr. Rascon. Thank you very much, sir.
    Chairman Warner. I certainly associate myself with those 
remarks. I know the Secretary well. He wishes you well this 
morning.
    Mr. Rascon. Thank you very much.
    Chairman Warner. My colleagues, do you have any comments? 
Then we will ask our distinguished colleague, the senior 
Senator from Maryland, to begin.

   STATEMENT OF PAUL S. SARBANES, U.S. SENATOR FROM MARYLAND

    Senator Sarbanes. Thank you very much, Mr. Chairman, 
members of the committee. Recognizing the time constraints you 
are operating under, to which the Chairman alluded, I'll be 
very brief. I have to take a couple of moments to say good 
things about Jim Roche. This is an absolutely superb 
nomination, and I can't think of anyone better qualified to be 
the Secretary of the Air Force.
    He has had an incredibly distinguished career, including 
more than two decades of service in the United States Navy. He 
was even the Democratic staff director of this committee at one 
point, so for all the staffs sitting back there at the chairs, 
this is what eventually might transpire.
    He has done an absolutely superb job at Northrop Grumman. 
He has actually received a Ph.D. in management from the Harvard 
Business School. He has put a lot of those practices on line in 
his corporate work at Northrop Grumman for almost two decades 
now and he has done what is recognized in the corporate world 
as an outstanding job of leadership.
    The people at Northrop Grumman in our State all testified 
to the superb example that he sets, and I can't tell you how 
pleased we are. We are going to lose him, and we regret that, 
lose him in the sense of having him as a leading corporate 
citizen in the State, but of course, the Nation will gain 
tremendously.
    One of the things he does is he takes his business 
colleagues around, and instructs them on a lot of military 
command, including visiting famous battlefields. Jim's been 
quoted as saying the business relevance of studying military 
command is clear. No soldier ever lost a battle. Officers lose 
battles. No employee ever bankrupted a company. Executives ruin 
companies. That is just one example of the kind of innovative 
thinking that he has brought to his responsibilities. The Air 
Force, the Nation, and the country are going to benefit greatly 
from his leadership, and I have just come this morning to 
endorse him in a the very strongest terms.
    Thank you very much, Mr. Chairman.
    Chairman Warner. We also have the other distinguished 
Senator from Maryland with us. Senator Mikulski. We welcome 
you.

  STATEMENT OF BARBARA A. MIKULSKI, U.S. SENATOR FROM MARYLAND

    Senator Mikulski. Good morning, Senator Warner, Senator 
Levin, and other members of the committee. I am here to 
enthusiastically introduce Dr. Jim Roche to the committee, as 
well as also introduce Alfred Rascon, who is also a brother 
Marylander.
    In terms of Dr. Roche's nomination, Senator Sarbanes has 
outlined the experience. In knowing Dr. Roche as both a 
corporate executive, as well as a real citizen of Maryland 
through his civic engagement, I was struck in getting to know 
him by his extensive background.
    He has great knowledge of the military. He has combat 
experience, both in the military and then in his role as a 
Senate staffer on both the Intelligence and Armed Services 
Committees. That is another kind of combat experience. It will 
be great to have someone who understands the role of Congress 
and brings great expertise to the position.
    What I have noticed, and also in our many conversations, is 
that Dr. Roche understands the issues facing today's military, 
as one who served and yet at the same time had to provide the 
new technologies, the new smart weapons. He understands the 
tremendous demands on our military and the changing face of 
military families. He has been acknowledged as one of the most 
creative intellectuals in the aerospace community by his 
colleagues and by industry analysts. Also in terms of his own 
community involvement, he has absolutely engaged in not only 
helping those left out and left behind by groups like United 
Way, but as a mentor, as an involver in higher education to 
really look at how we can raise this next generation of young 
people to be the most intellectually capable and dedicated to 
service.
    I asked Dr. Roche a few weeks ago why he was considering 
leaving his job as an executive to take this. I said, you are 
in charge of your life. You are in charge of your calendar. You 
have worked hard all of your life, and you know what he said? 
He says you have to have a burning affection for the United 
States of America, and for the kids who we ask to go to war, 
and I'd like to play a role for them. So we think he will be an 
outstanding Secretary of the Air Force and look forward to 
introducing him and voting for him.
    Also, Alfred Rascon comes to you today as a Congressional 
Medal of Honor winner. As a former DEA agent, as a resident of 
Maryland who has been active in many ways in the leadership of 
our Nation and our country, he is a defender. He is a 
protector. He is a fighter. The Selective Service needs to be 
re-energized. As the appropriator on the Appropriations 
Committee's VA-HUD Subcommittee, I look forward to working with 
him to re-energize it. We believe his leadership will rekindle 
even a greater sense of what young people need to have as 
service to the Nation.
    So as the junior Senator from Maryland, I couldn't be 
prouder of bringing these two men to your attention.
    Chairman Warner. You certainly come through in your 
statement. The committee welcomes our two colleagues from 
Maryland and thank you for your valuable contributions. I note 
the presence of the distinguished senior Senator from the State 
of Texas, Mr. Gramm.

        STATEMENT OF PHIL GRAMM, U.S. SENATOR FROM TEXAS

    Senator Gramm. Mr. Chairman, thank you very much. It's a 
great honor for me to be back before the Armed Services 
Committee, a committee which I had the privilege to serve on 
for 6 years.
    I am here to introduce and recommend a Texan, Tom White, to 
this committee. Tom is Vice Chairman of Enron Energy Services 
and leads a management team that runs the largest retail energy 
business in America.
    He is a 1967 engineering graduate of the United States 
Military Academy. He has a Masters of Science degree in 
operations research from the U.S. Naval Postgraduate School. He 
attended the War College. He served with distinction in 
Vietnam. He retired as a general officer before coming to 
Enron, and he has that rare combination of practical experience 
in the military and proven leadership in the private sector of 
the economy. I think it is fair to say, Mr. Chairman, that Tom 
White is one of the most outstanding managers in corporate 
America.
    I thanked him earlier this morning for being willing to 
give up tremendous earning power to come and serve the country, 
and I want to commend him to you. He is what we would call in 
Texas a top hand. He is the kind of guy you want when you want 
something done. I have no doubt in my mind, Mr. Chairman, that 
he will do an outstanding job as Secretary of the Army.
    He is a person that knows how to manage people and 
resources, and when our job is taking the money we have and 
building the finest Army we can build with those resources, I 
don't have any doubt in my mind that Tom White can do an 
outstanding job, and therefore I commend him to you.
    Chairman Warner. Thank you, Senator Gramm.
    Congressman Bartlett.

   STATEMENT OF ROSCOE G. BARTLETT, U.S. REPRESENTATIVE FROM 
                            MARYLAND

    Mr. Bartlett. Thank you very much. I have a statement for 
the record if that might be entered.
    Chairman Warner. Without objection, we will include it.
    [The prepared statement of Mr. Bartlett follows:]
          Prepared Statement by Representative Roscoe Bartlett
    Members of the Senate Armed Service Committee, I take great 
pleasure in introducing to you President Bush's nominee for Director of 
the Selective Service, Alfred Rascon. He is also one of my most honored 
and decorated constituents.
    Alfred V. Rascon is a Medal of Honor Recipient, who was born in 
Chihuahua, Mexico. His parents immigrated to the United States, 
settling in Oxnard, California, where Mr. Rascon attended elementary 
and high school. His strong desire to give back to our country led 
Alfred to enlist in the U.S. Army. Mr. Rascon served our country 
faithfully during the Vietnam War, and his heroic actions during his 
service there resulted in presentation of this Nation's highest award 
for valor, the Medal of Honor. It was belatedly presented to him by 
former President Clinton on February 8, 2000.
    Mr. Rascon received the Congressional Medal of Honor for his 
gallantry during the Vietnam War. He served as a Specialist Four medic 
to a reconnaissance platoon in the 173rd Airborne Brigade. On March 16, 
1966, Mr. Rascon's platoon came under heavy fire from  numerically 
superior force while moving to reinforce another battalion. 
Disregarding his own safety, Mr. Rascon ran to assist his fellow 
soldiers under heavy enemy fire. He was wounded numerous times. Three 
separate times, he fell on fellow soldiers using his own body to shield 
them from heavy machine gun and grenade attacks. He recovered 
ammunition, so that his comrades would not be overrun. Though severely 
wounded, he continued to search for other wounded comrades to assist. 
He later refused aid for himself or evacuation and continued to provide 
assistance to his fellow soldiers until he collapsed.
    The paperwork for Mr. Rascon's original recommendation for the 
Congressional Medal of Honor was lost in the Pentagon. It was only 
recognized recently due to the efforts of members of his platoon, who 
testify to this day that they are alive only because of Mr. Rascon's 
heroism. I was pleased to assist in remediating this problem and even 
more pleased to learn that he has been nominated for Director of the 
Selective Service.
    From 1983 to the present, Mr. Rascon has served honorably as a 
government civil servant. He has worked with Department of Justice, 
Drug Enforcement Administration, INTERPOL (U.S. National Central 
Bureau), and the Immigration and Naturalization Service. He recently 
retired as Inspector General of the Selective Service System, 
headquartered in Rosslyn, Virginia. He has received myriad awards and 
commendations from U.S. and foreign agencies for his civil and military 
service. Alfred Rascon truly embodies the values that make America 
great and would be a valuable asset to this administration.
    We live in a world today where too many of the role models of our 
children commit notorious acts or act totally out of self-interest. It 
is men such as Alfred Rascon who show us what role models are supposed 
to be. He regarded the lives of others as more important than his own 
and acted totally out of his care for then. He did not seek attention 
when his paperwork was lost in the Pentagon. Indeed, in no way has he 
ever tried to glorify himself or take credit for his actions. His 
friends and those whose lives he had saved in Vietnam had to bring to 
light the fact that his heroism had gone unrewarded by his country.
    We must constantly remind ourselves and educate our children that 
we are privileged to live in the greatest and most tree country on 
Earth only because of the service and sacrifices of brave individuals, 
such as Alfred Rascon. Our country can never truly reward this man or 
those like him who have sacrificed so much for us. The only thing we 
can do is to never forget them.
    We are very fortunate to have a man like Mr. Rascon serving our 
country. His service to our country, both in the military and as a 
civil servant, has been exemplary. I would like to take this 
opportunity to thank him for his service and for his willingness to 
continue his service to our Nation.
    I would also like to thank the committee and Alfred for allowing me 
to introduce him today.

    Mr. Bartlett. Thank you very much. Let me just speak 
briefly then.
    I am really pleased today to be able to introduce to you 
Alfred Rascon, who is not only a great American hero, he is 
also my constituent. He was born in Mexico, came to this 
country with his parents. Before he was a citizen of this 
country because he appreciated so much what he found here, he 
entered our armed services and served in Vietnam. While there 
as a medic, the group he was with was involved in a heavy 
firefight, and although he was a medic, he threw his body over 
the bodies of several of his comrades to protect them. He went 
out and retrieved a gun and ammunition and he probably was 
credited with saving many lives, not just by his heroic action 
in shielding them with his body, but also retrieving guns and 
ammunition so that they had more firepower.
    The paperwork for his Medal of Honor was lost. Never once 
did he come forward to say ``why wasn't I recognized for 
this.'' It was his buddies who came forward years later to make 
the statement, ``why wasn't he recognized.'' I am pleased to 
have had a part in remedying that inequity and just a couple of 
years ago, I attended the Medal of Honor ceremony where he was 
given the Medal of Honor and you know, what a great individual 
and what an opportunity we have.
    Now I am really pleased to introduce him to you as the head 
of the Selective Service. He has exemplified all of those 
things that our forefathers came here to fight for. We talk 
about role models for our kids today. Many of our role models 
fail us. Alfred Rascon has not failed us. He is a role model we 
can all be proud of and I don't think we could do better for an 
individual to head this very important service. Thank you very 
much.
    Chairman Warner. Congressman Bartlett, thank you for 
joining us and for giving us those facts. There is not a person 
in this room or anyone watching the proceeding from afar that 
isn't humbled and deeply moved by being in the presence of this 
distinguished American hero.
    Thank you.
    We will now proceed to have the opening statements from our 
witnesses. Senator Levin and I have reviewed your policy 
questions. Senator Levin and I also as a matter of our routine 
reviewed the communications from the White House counsel with 
regard to your backgrounds, and we find all that material in 
order. Any question on that?
    Senator Levin. No.
    Chairman Warner. Dr. Chu, if you will proceed.

STATEMENT OF DR. DAVID S.C. CHU, NOMINEE TO BE UNDER SECRETARY 
             OF DEFENSE FOR PERSONNEL AND READINESS

    Dr. Chu. Mr. Chairman, I have no statement for the record 
but with your permission, I would like to make some brief 
openings remarks.
    Mr. Chairman, Senator Levin, members of the committee, it 
is indeed an honor to appear before you this morning as the 
President's nominee for Under Secretary of Defense for 
Personnel and Readiness.
    I would like to thank the President for nominating me for 
this position and Secretary Rumsfeld for his guidance, 
confidence, and support. I'd also like to thank this committee 
for all it has done over the years for the men and women of our 
armed forces. If I am confirmed, I look forward to working with 
the committee to meet the many challenges in front of us. 
Finally, I'd like to thank my family for its support as I have 
pursued earlier and may now again pursue a career in public 
service. I am very grateful to them for their affection and 
their willingness to support my service. Thank you, sir.
    Chairman Warner. Thank you, Dr. Chu. The committee is 
privileged this morning to have joining us the distinguished 
junior Senator from the State of Texas and I'll be happy to 
receive your statement.

   STATEMENT OF KAY BAILEY HUTCHISON, U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Chairman Warner. When the 
hearing was delayed, I was chairing a meeting of the Aviation 
Subcommittee.
    Chairman Warner. I recognize that. We are glad you are 
here.
    Senator Hutchison. I appreciate so much your taking me out 
of order so that I can----
    Chairman Warner. You are very much in order. The senior 
Senator just left the room.
    Senator Levin. Your timing is really perfect in the matter.
    Senator Hutchison. Since Senator Rockefeller is now in 
charge of the Senate Aviation Subcommittee, I need to return 
fast. No telling what's going to come out of our subcommittee 
today. Seriously, I am so pleased to be here for my friend, 
Gordon England, who has been nominated for Secretary of the 
Navy. He and his wife Dottie have been long-time friends of 
mine in Texas.
    But more important than that, he is the most qualified 
person to serve in this position and in the Pentagon because of 
his long-time experience and expertise in engineering and just 
the equipment that we are going to need as we go into the next 
century.
    I first came to know him when he headed General Dynamics 
and later Lockheed, where the world's best tactical fighter is 
made, the F-16. That program, of course, has been a model for 
Air Force procurement. I am confident that he will bring the 
same leadership to the Navy. After Gordon left Lockheed, he 
became Executive Vice President of General Dynamics 
Corporation, responsible for information systems and 
international sales.
    During his career, which began as an engineer on the Gemini 
space program, and as an avionics design engineer, he served in 
many positions within the industry, including President of 
General Dynamics Land Systems, producing land combat vehicles, 
and President of its Fort Worth aircraft company and Executive 
Vice President of the Combat Systems Group.
    Mr. England's wealth of knowledge and experience alone more 
than qualifies him for this new responsibility. But more 
important even than all of that is his personal commitment to 
our strong national security, his vision, his character. 
Throughout his career, he has not only been able to overcome 
challenges, but to bring a caring and empathetic approach in 
dealing with the work force.
    During the period of difficult cutbacks in the Fort Worth 
defense industry, he helped to create the city's business 
assistance center, which helps people start or expand 
businesses. I think in the coming years, the Pentagon is going 
to have to make hard, tough choices about tactical aviation, 
shipbuilding, and the host of modernization and transformation 
issues. Here in Congress, it is critical that we have trust and 
confidence in the leadership making these calls. Gordon England 
is precisely the kind of visionary leader that the Navy needs, 
and I am very honored that he has been nominated by the 
President and given that confidence and I assure you that he 
will serve with distinction.
    Chairman Warner. I thank the Senator from Texas very much 
for that valuable contribution.
    Senator Hutchison. Mr. Chairman, could I just take leave 
for 1 minute to mention Tom White. Tom is not a Texan exactly, 
but he has chosen God's country for the last 10 years. So I 
want to say that he is not technically a Texan.
    Senator Levin. He was born in Detroit, by the way, so he 
left God's country.
    Senator Hutchison. He left God's country as soon as he 
could, Senator Levin. But seriously, he will be an outstanding 
Secretary of the Army. He is going to be introduced by others 
as well as you, Senator Levin. But he has had a wonderful 
military career. He graduated from West Point, rose to the rank 
of Brigadier General and I can't think of a better person to be 
entrusted in the position of Secretary of the Army.
    Thank you.
    Chairman Warner. Thank you very much, Senator.
    Mr. White.

 STATEMENT OF THOMAS E. WHITE, JR., NOMINEE TO BE SECRETARY OF 
                            THE ARMY

    Mr. White. Chairman Warner, Senator Levin, members of the 
Armed Services Committee, I am deeply honored and privileged to 
appear before this committee. I am also extremely grateful to 
the President and the Secretary of Defense for the confidence 
and the trust they have shown in nominating me to serve as the 
18th Secretary of the Army.
    Mr. Chairman, I sincerely appreciate your very kind 
introduction and that of Senator Gramm and Senator Hutchison, 
and especially the introduction of my wife, Susan, and our 
daughter, Katie, who are here with us today. They, along with 
our two sons, Tommy and Chuck, are my supporting foundation as 
we contemplate this new phase in our lives.
    Mr. Chairman, I look forward to any questions you and the 
committee have for me concerning this nomination. I ask that my 
written opening statement be submitted for the record so that 
we might have more time for discussion.
    [The prepared statement of Mr. White follows:]
               Prepared Statement by Thomas E. White, Jr.
    Chairman Warner, Senator Levin, members of the Armed Services 
Committee, I am deeply honored and privileged to appear before this 
committee. I am also extremely grateful to the President and Secretary 
of Defense for the confidence and trust they have shown in me by 
nominating me to serve as the 18th Secretary of the Army.
    Mr. Chairman, I sincerely appreciate your very kind introduction, 
especially the introduction of my wife, Susan, and our daughter, Katie. 
They, along with our two sons, Tommy and Chuck, are my supporting 
foundation as we contemplate this new phase in our lives.
    If confirmed, this will be my first opportunity to serve in the 
Pentagon in a position subject to confirmation by this committee. I am 
fortunate to have had other valuable experiences in the Army, in the 
Pentagon, and in senior leadership positions in industry that will 
allow me to bring a thorough knowledge of the Department and an 
understanding of best business practices to the very important 
responsibilities of the office for which I have been nominated.
    During my 23 years of active Army service, which included two tours 
in Vietnam, command of the 11th Armored Cavalry Regiment in Germany, a 
number of assignments on the Army Staff, and finally, duty as the 
executive assistant to then Chairman of the Joint Chiefs of Staff, 
General Powell, I personally witnessed many changes in the Army.
    I saw the Army's low points consistently counterbalanced by the 
dedication, courage, and commitment of our soldiers. I saw the Army 
right-size and down-size. I saw and participated in the transformation 
of our Army from the Vietnam Army to the Cold War Army. Our Army today 
is once again an Army in transformation, as it must be, to meet our 
important responsibilities for the security of our Nation in the new 
century. Seen in the context of the 225-year history of our Army, this 
imperative to change is not new.
    I would like to add however, that my most enduring lessons over the 
years were provided by the individual sacrifices and contributions of 
the American men and women I was privileged to lead, in peace and in 
war. We have a very serious obligation to all of them--active, reserve, 
guard, civilian, and veteran--for they are the foundation of every 
capability we pursue. As the President reminded us, peace is earned by 
the hard and often dangerous work of our men and women in uniform. The 
old adage that people are not ``in the Army,'' they ``are the Army'' 
has never been more true. Taking care of people is a sacred duty I will 
bear if confirmed as Secretary.
    During their confirmation hearings, both Secretary Rumsfeld and 
Deputy Secretary Wolfowitz eloquently described the changes our world, 
our Nation and our military have undergone in the last quarter century. 
They also described the President's three national security goals and 
the five key supporting objectives of the Department of Defense. I am 
fully committed to these goals and objectives and will lead the Army's 
efforts to ensure they are integrated with our sister services and 
completely accomplished.
    I would like to share with this committee the objectives I will 
pursue in support of the President and the Secretary of Defense, as we 
work together to make the Army's vision a reality.
    The first objective is to invest in people. We must attract, 
develop and retain America's best and brightest. We must provide for 
the quality of life and well being of soldiers, Department of Defense 
civilians, veterans, and their families. We must manage personnel 
turbulence and improve the predictability and stability in the lives of 
soldiers and families. We must expand and develop educational 
opportunities to promote the continuous personal and professional 
learning required to take maximum advantage of technological advances. 
We must continue to make the diversity of our people a competitive 
advantage. We must achieve high-quality standards for installations and 
housing, through a series of initiatives such as the Army's Residential 
Communities Initiative. Finally, we must advance the development of 
bold and innovative leaders. In short, there is no more important 
investment than our investment in people--it is an imperative.
    The second objective is to assure readiness. American forces have 
always proven their unfailing ability to adapt to new conditions, 
stretch limited resources to sustain operations over extended periods 
of time, and always . . . always . . . accomplish their mission. Too 
often however, we have paid a high price in human life during the 
initial phases of almost every combat operation because we were not 
ready for the changes we faced. Today, the pace of change is faster and 
conditions more uncertain than ever. Assuring readiness today means a 
full commitment to modernizing our equipment and weapons to maintain 
the qualitative edge afforded by advances in technology, recapitalizing 
the systems we need in the near- and mid-term, fully integrating the 
Active and Reserve components, fully manning our combat and support 
units, managing the mission cycle of units to improve the operational 
and personnel tempo of our people and systems, and improving our 
ability to operate in a joint and combined arena. I am committed to 
readiness in the broadest sense.
    The third objective is to transform the entire Army. Transformation 
encompasses every aspect of our Army. It is more than merely divesting 
ourselves of obsolete systems and purchasing new ones. It is more than 
just an interim armored vehicle, or a beret, or a Future Combat System. 
Every aspect of the Army--doctrine, organization, training, leadership, 
materiel and equipment, recruiting and advertising, acquisition, 
infrastructure, and much more--must all change together in a holistic 
manner. The force characteristics we require to maintain strategic 
dominance--responsiveness, deployability, agility, versatility, 
lethality, survivability, and sustainability--can only be achieved if 
we transform the entire Army--and we will.
    The final objective is adopting sound business practices. The first 
three objectives I mentioned can be accomplished--for a price. But that 
price must be affordable. We must share the burden of achieving the 
military capabilities America needs and do so in an affordable manner. 
To that end I will take a hard look at opportunities for increased 
outsourcing and privatization of non-core functions. We owe it to every 
American to improve the manner in which we use our resources. We owe it 
to every American to give our soldiers the capabilities they need to 
fight, win, and live to fight again.
    Mr. Chairman, I thank you for the opportunity to testify today and 
for the committee's consideration of my nomination. Let me close by 
saying once again how honored I am to have been nominated by President 
Bush for this position. If confirmed, I pledge to do my utmost to 
fulfill the trust and confidence placed in me by the President, the 
Secretary of Defense, and the men and women of our Army.

    Chairman Warner. Your statement and the statements of all 
will be admitted in their entirety in today's record.
    Mr. White. Thank you, Mr. Chairman.
    Chairman Warner. Mr. England.

STATEMENT OF GORDON R. ENGLAND, NOMINEE TO BE SECRETARY OF THE 
                              NAVY

    Mr. England. Mr. Chairman and members of the committee. It 
is my honor to be here today to seek confirmation as the 72nd 
Secretary of the Navy. I want to thank Senator Hutchison for 
being here and for her kind words. I would also like to express 
my appreciation to the President and Secretary Rumsfeld for 
this opportunity to serve our Nation, our sailors, and our 
marines.
    I fully support their efforts to build a military more 
relevant to the threats and opportunities of the 21st century. 
If confirmed, I will work closely with this committee and 
Congress in bringing about this transformation and in ensuring 
the security of our great country. I thank you for your kind 
attention. I do look forward to your questions, and Mr. 
Chairman, I do have a prepared statement for the record. Thank 
you.
    [The prepared statement of Mr. England follows:]
                Prepared Statement by Gordon R. England
    Mr. Chairman, members of the committee, it's my distinct honor to 
appear before you today in seeking confirmation as the 72nd Secretary 
of the Navy. I also want to express my appreciation to the President 
and to Secretary Rumsfeld for this opportunity to serve our Nation and 
our sailors and marines. I fully support the President and the 
Secretary of Defense in their efforts to build a military more relevant 
to the threats and opportunities of the 21st century. Should I be 
confirmed, I look forward to working with this committee and Congress 
to bring about this transformation within the Department of the Navy.
    If confirmed, I plan to initiate four strategic thrusts in support 
of the President's vision. These initiatives center on combat 
capability, people, technology, and business practices.
    Regarding combat capability, as this committee well knows, the 
primary purpose of the Navy and Marine Corps is to deter, train for, 
and when necessary, fight and win our Nation's battles. In remaining 
faithful to this charge, combat capability which includes readiness, 
must be our primary emphasis. If necessary resources will be shifted to 
meet this objective. In all our decision-making, we will ask the 
question, ``Does this task, program, organization or facility 
materially contribute to improving our combat capability?'' Likewise we 
will recognize that what has worked in the past may not always succeed 
in the future. Therefore, the Department will invest more in technical 
and doctrinal experimentation, and in new and different ways of 
accomplishing our mission. Our mission will be joint--One Team, One 
Fight. Along with our sister services and allies, we will organize, 
equip, and train to fight jointly.
    People are our most important and valuable resource. While this has 
long been widely touted in the naval service, we can do a better job of 
practicing what we preach. A ship pier side has absolutely no asset 
value to this Nation without a well-trained and highly motivated crew. 
Our Nation's investment in carriers, ships, submarines, aircraft, and 
other advanced technology systems will be squandered if we do not 
aggressively demonstrate our commitment to people. To tackle this, I 
will emphasize ``Quality of Service''--achieving a higher quality 
workplace as well as a higher quality of life for our sailors, marines, 
active duty and Reserve, and civilians and all of their families. The 
goal will be to create an environment where our men and women can excel 
at their chosen profession, unimpeded by factors that divert their 
attention from work and sap their morale. This includes competitive 
compensation and quality housing, workplace resources, health care, and 
training, with an operational tempo that considers the individual, as 
well as family and community. This environment is based on attuned 
leadership throughout our command structure that encourages information 
to flow freely up and down the organization. and that values the 
knowledge and expertise of the total force. Everyone in the Department 
of the Navy needs to recognize that while some positions carry a 
greater burden, all of our people are equal and important. No one 
should be discounted because of rank or years of service. At the end of 
the day, our sailors, marines, and civilians should know that their 
contribution is important and feel that their work is both stimulating 
and rewarding.
    The application of advanced technology is central to our Nation's 
military strength. Unfortunately, the application of technology in the 
military has for a generation lagged its commercial availability, 
sometimes by several iterations. This is most pronounced in our 
combatsystems, but also includes technology for training testing and 
management systems. This lag is inconsistent with the effort led by 
President Bush and Secretary Rumsfeld to restructure defense for a new 
national security environment.
    Should I be confirmed, I will focus on several areas to address 
this problem. First, the Navy Department needs to draw a technological 
advantage from the full spectrum of American businesses and 
universities. To gain this broad participation, the unique DOD 
acquisition system, with its myriad rules and regulations, needs to be 
simplified and streamlined. It must and Will come more into alignment 
with commercial practices. The Department will be proactive in 
supporting the Under Secretary for Acquisition in implementing these 
changes. Second, layers of bureaucratic decision-making, with their 
inherent time delays, will be streamlined. Third. ``spiral 
development,'' the fielding of available technology with planned 
evolution to a final configuration, will further speed the introduction 
of new technology into service.
    Finally, if confirmed, I will strive to improve the efficiency and 
effectiveness of DOD and DoN business practices. While the Navy 
Department serves a national purpose with overarching goals well beyond 
the commercial objectives of markets and profit, many commercial 
business practices are still applicable.
    Over the past few years, it appears that the gap between government 
and industry business practices has widened, with two negative 
consequences: First, inefficient Departmental processes have led to 
ineffective results, generally due to unaffordable solutions. Second, 
commercial companies have largely deserted the DOD while traditional 
defense companies have started to diversify into commercial business. 
By improving business practices we should be able to shift more dollars 
into combat capability and expand our buying power through increased 
competition.
    Should I be confirmed, several management techniques will be 
implemented to systematically improve business practices. First, we 
need an activity based costing system to provide the actual cost of our 
activities and programs. Managers will then be able to make informed 
decisions before committing valuable resources. Second, we will 
implement comprehensive measures and metrics at all levels of the 
organization. We will measure what we do and evaluate our performance 
against established metrics. Third, our management team will be process 
oriented. We will improve processes to improve products, rather than 
working on products exclusively.
    In summary, my agenda is to substantially improve our combat 
capability, enrich the lives of our people, swiftly incorporate 
technology across our total operation. and dramatically improve our 
business practices. Each of these thrusts is interrelated, so 
implementation will be systematic rather than piecemeal. These efforts 
will be difficult and challenging and the support of this committee 
will be essential and greatly appreciated.
    If confirmed, I will work closely with Congress on matters 
affecting our Navy and Marine Corps and the security of our great 
Nation. Thank you for your kind attention. I look forward to your 
questions.

    Chairman Warner. Dr. Roche.

STATEMENT OF DR. JAMES G. ROCHE, NOMINEE TO BE SECRETARY OF THE 
                           AIR FORCE

    Dr. Roche. Good morning, Mr. Chairman.
    Mr. Chairman, Senator Levin, distinguished members of the 
committee, it is truly an honor and privilege to appear before 
you today as the President's nominee to serve as the 20th 
Secretary of the Air Force. We are the junior and newest 
service. I especially would like to thank Senators Sarbanes and 
Mikulski for their kind remarks. They mean a great deal to me. 
Senator Sarbanes, you have spent 25 years trying to educate me, 
and I hope I can live up to your expectations. I am deeply 
grateful for President Bush for nominating me to this post, for 
Secretary Rumsfeld for giving me the opportunity to continue to 
serve my country in this vital position on his team. I very 
much appreciate their support and confidence they placed in me 
to lead the United States Air Force as Secretary, if I am 
confirmed.
    Mr. Chairman, I would also like to thank all who have 
helped me in this nomination process, in the office of 
Secretary of Defense, in Northrop Grumman, the U.S. Air Force, 
and especially my wife, Diane, daughter, Heather, and this 
committee especially for expediting my appearance here today. I 
owe my appreciation to David Lyles and Les Brownlee. I don't 
think I would have been as competent as they have been in 
moving something as quickly on your behalf as they have. I very 
much appreciate what they did. I look forward to working very 
closely with this committee and with these key leaders of your 
staff, sir. With your permission then, Mr. Chairman, I would 
like to have the remainder of my remarks placed in the record.
    [The prepared statement of Dr. Roche follows:]
                Prepared Statement by Dr. James G. Roche
    Mr. Chairman, Senator Levin, distinguished members of the 
committee, it is truly an honor and a privilege to appear before you 
today as the President's nominee to serve as the 20th Secretary of the 
Air Force I want to thank Senator Mikulski for her kind remarks--they 
mean a great deal to me. I am deeply grateful to President Bush for 
nominating me to this post, and to Secretary Rumsfeld for giving me the 
opportunity to continue to serve my country in this vital position on 
his team. I deeply appreciate their support and the confidence they 
have placed in me to lead the United States Air Force as its Secretary, 
if I am confirmed.
    I also would like to thank all who have helped me in the nomination 
process, both in OSD and in the U.S. Air Force, and especially this 
committee for expediting my appearance for today's hearing.
    With your permission, Mr. Chairman, I will make a few opening 
remarks and request that my prepared statement be included in the 
record.
    Mr. Chairman, throughout my 23 years wearing the uniform of the 
United States Navy, and in my subsequent years working with the Armed 
Services--either on the staff of this committee or the Senate Select 
Committee on Intelligence, or as a member of our defense and aerospace 
industry--what has impressed me the most about our Nation's Armed 
Services is the quality of the individuals who voluntarily serve. For 
instance, it strikes me that members of the Air Force team have earned 
their world-class reputation because of their commitment to the highest 
standards of excellence;
    Because they have earned the support and confidence of the people 
and the elected representatives of the greatest Nation on earth;
    Because they have harnessed the talents and technologies of 
America's defense industrial base;
    Finally, because they have forged a seamless team among the truly 
outstanding enlisted members, officers, civilians, Air National 
Guardsmen, and reservists. They, above all, are the reason whyI am so 
honored to be nominated to this post, and why I will be committed to 
this job with every fiber of my being, if I am fortunate enough to be 
confirmed by the Senate.
    Mr. Chairman, I am proud of my service in the world's finest 
Navy,and I feel fortunate to have had the opportunity to contribute in 
some small way to our National security as a business person with the 
Northrop Grumman Corporation for the past 17 years. I am especially 
honored to have led the extraordinary men and women of Northrop 
Grumman's Electronic Sensors and Systems Sector. But I am tremendously 
excited at the prospect that, if confirmed, I may be counted as a 
member and leader of the U.S. Air Force.
    I want to thank you, Mr. Chairman, Senator Levin and the members of 
this committee, for your outstanding support to each of the Armed 
Services. I, more than most, realize the critical importance of the 
relationship between this committee and our Armed Services. For 
instance, every major touchstone in our Nation's proud aerospace legacy 
may be linked in some tangible way to a deliberation, or a question 
raised, or a decision made by this committee. The relationships between 
the Air Force and the members this committee, as well as with your 
counterparts in the House of Representatives, are key to its past 
successes. Maintaining and building upon these relationships, I 
believe, will be the core enablers of our future accomplishments. If 
confirmed, I would solicit your counsel and guidance--not just your 
support and approval. This, for me, is a matter of ``coming home'' to 
this committee, the esteemed members of which--on both sides of the 
aisle--taught me so much during my service here.
    Secretary Rumsfeld has made it very clear that, despite the 
strategic and technological strengths embodied in our Armed Services, 
we are in an era in which a sound strategic calculus compels us to 
review--and perhaps, to rethink--our defense posture in a changed 
security environment. If confirmed as Secretary of the Air Force, I 
would expect to be judged against the following four goals that I 
proposed for myself to Secretary Rumsfeld:
    First, the Air Force, as well as its sister Services, is obliged by 
the changed national security environment to fashion, along with our 
allies and friends, a deterrence posture that matches those changed 
conditions . . . and tomorrow's challenges, however uncertain they may 
appear to us. We must continue to renew, or build anew, a force 
structure that, when teamed in joint or combined operations, will be 
effective in keeping peace and preserving freedom in this century, not 
the last one. I look forward to the opportunity to lead the Air Force, 
work with the Department of Defense, and solicit your views to adapt 
Air Force strategy and force structure for the future. This forward-
looking focus will inspire members of the Air Force with a renewed 
sense of their noble calling, enabling airmen to connect with the core 
reasons why they put on the uniform each day, come to work, and put 
their lives on the line for the security our great Nation.
    Second, this committee is well aware that one of the urgent tasks 
facing the Air Force leadership is to deepen and enrich the bonds of 
trust  with the men and women who serve our Nation on the Air Force 
team. We must be able to attract and retain the very best individual to 
serve--and then take care of them and their families--both military and 
civilian. Some very good work has been done--again, with your 
tremendous support--to identify and recruit quality people while 
maintaining stringent Air Force standards; but we must capitalize on 
those efforts now and redouble our efforts on retention and 
development. We must foster a culture of career aspiration among Air 
Force officers and enlisted personnel--whether they be pilots or 
aircrew, space operators or navigators, aircraft maintenance 
technicians or para-rescue jumpers. The range of military aerospace 
careers is broad and rich with opportunity.
    But we often fall short on staying power, on keeping our people 
informed, engaged and motivated throughout their careers. I view this 
as the Air Force's most critical challenge because, in my experience in 
naval command and in business, I have had it proven over and over that 
people remain the most important resource of any organization. Force 
readiness, sustainability, mission performance--all of these depend on 
developing the best composition of quality individuals on the team, and 
on motivating each and every member of the service with an unparalleled 
esprit de corps.
    Our Nation demanded a great deal from Air Force people in the past 
decade--and that team responded brilliantly. From global humanitarian 
operations to Operation ALLIED FORCE, the citizens of the United States 
justifiably can be proud of their Air Force. In the midst of a 
transition to a 40-percent smaller force deploying over 3 times as much 
as in the previous decade, aerospace leaders have adapted the Air Force 
to make it truly expeditionary. This has been a remarkable 
accomplishment, and a tremendous contribution to a secure, global 
peace. It uniquely situates the Air Force in a position to harness the 
economic and technological advantages in this era, in order to preserve 
our Nation's leadership in the next.
    But in order to get there, we must accelerate our drive to become 
more modern and more efficient as an organization. This is the crux of 
my third goal: Air Force process, organization, structures--all of 
these need to be reexamined in the light of lessons learned and new 
realities. It is time to assess whether the sweeping organizational and 
process changes implemented in the last decade have produced their 
intended results. Considering the current global scene; the Air Force's 
transition to a smaller, busier force; and the near completion of its 
adaptation to an expeditionary force, I am confident we have much to 
gain by identifying and eliminating any inefficiencies that either 
remain or have resulted from all of the changes. The Air Force must 
also work with its depots to help them become more world-class--in 
costs as well as in quality. I would look to identify and bring best 
practices from government and industry to bear on our management of the 
service. As I stated earlier, I would welcome this committee's views, 
if confirmed, on policies, practices, or processes the Air Force should 
evaluate that might yield compelling efficiencies and cost savings.
    Fourth, I hope to have the opportunity to influence in a 
constructive manner the acquisition policies and processes so as to 
insure innovation and competitive vibrancy within our essential defense 
industrial base over the long haul. Using public dollars effectively 
and efficiently, we are obliged to assure the American people, our 
forces abroad, and our friends and allies that we will be able to 
continue to defend our interests in the decades to come. But this will 
require a new focus in Air Force and Department of Defense acquisition 
policies and practices. As Secretary Rumsfeld has said, ``Simply 
tinkering with the present acquisition system will not provide the 
innovation and speed necessary to satisfy future military needs and 
take advantage of powerful new technologies.''
    Nor does the current acquisition process always provide the 
necessary incentives to motivate the defense industry to become more 
efficient and deliver the most cost-effective goods and services. Worst 
of all, however, is the potential loss of innovation and technological 
advancement that might stem from the dramatically shrunken industrial 
base.
    The Air Force today benefits from innovations and technologies 
developed over the years by many, many aerospace companies--some of 
them very small. But today, those ``many'' companies have been whittled 
down to just a few large, bureaucratic, and in some cases, seemingly 
vertically integrated, corporations, pursuing fewer and fewer new 
programs. The Air Force must begin a concerted process to find ways to 
incentivize and motivate contractors, large and small, to become more 
competitive, efficient and innovative, and to take full advantage of 
the fast-paced technological and business-process changes occurring in 
this century's information-dominated economy.
    Mr. Chairman, if confirmed, I look forward to the prospect of an 
active, constructive relationship with you and this committee. Along 
with guidance from Secretary Rumsfeld, I will need your help, counsel, 
and support. I am sincerely honored to have the opportunity to be 
considered for this post on one of the most creative, experienced, and 
respected teams the world has known--the United States Air Force. 
Again, I want to express my appreciation to President Bush and 
Secretary Rumsfeld for their confidence and trust in me. I thank you, 
Mr. Chairman, Senator Levin, and the members of this committee.

    Chairman Warner. Mr. Rascon.

   STATEMENT OF ALFRED V. RASCON, NOMINEE TO BE DIRECTOR OF 
                       SELECTIVE SERVICE

    Mr. Rascon. Chairman Warner, and other members of this 
great committee. I too have an opening statement, but I'll make 
it quick and I'll make it short.
    Chairman Warner. Take your time. Take all the time you 
need.
    Mr. Rascon. I am really humbled to be here before all of 
you and most of all, in having the privilege to be nominated by 
the President for this great position of Director of Selective 
Service. Pending Senate confirmation, I look forward to working 
with every one of you.
    The Selective Service ends up being a system that remains 
and should remain in this country for many years to come. Being 
a veteran and having been in the face of death and the face of 
war, I understand that at times, we may not want a draft, but 
it is necessary, and at times it is necessary to maintain the 
listing of young men, of young men who will be ready and be 
prepared to fight for this country.
    As such, sir, I have a prepared statement, and I'll just 
leave it for the record.
    [The prepared statement of Mr. Rascon follows:]
                 Prepared Statement by Alfred V. Rascon
    Chairman Warner, Ranking Member Levin, and members of the 
committee:
    I am humbled that President Bush has expressed his confidence in me 
to become the next Director of Selective Service. Pending Senate 
confirmation, I look forward to serving my country once again.
    As Director, I would be returning to the Agency from which I 
retired just 3 months ago after 38 years of Federal service in the Army 
and with several Department of Justice agencies including the DEA, the 
INS, and Interpol.
    At one time or another, I think most of us have dreamt about being 
placed in charge of the organization where we worked. If we worked 
there for a while, we appreciate which aspects of the system and 
organizational culture are top notch, but we can also identify some 
things might be done differently and better. If I am confirmed as 
Director, you will be placing me in a fortunate situation. As a 
knowledgeable former member of the agency's senior staff, I believe I 
am highly qualified to preserve the best aspects of a proud Agency that 
has a distinguished 61-year history, while making improvements to 
operational efficiency, motivating employees and volunteers, and 
boosting morale.
    The Selective Service System is a superb Federal agency with 
dedicated people doing terrific work, but there is always room for 
improvement. I know how the Selective Service System operates. I 
understand its importance to national defense readiness as America's 
only proven defense manpower insurance for a major crisis. I stand 
ready to make any needed improvements to the Agency's structure and 
defend its budget and necessary existence as a key component of 
national defense readiness. And, because of personal experiences 
involving duty, honor, and country in the midst of the horrors of a 
past war, I also understand and believe in the role that every young 
must play with regard to Selective Service. I will encourage the 2 
million men reaching age 18 every year in the U.S. that they must live 
up to their patriotic, legal, and civic obligation to help ``provide 
for the common defense'' by registering with Selective Service.
    With your support, I stand ready to take up the challenges of this 
important assignment. I thank you for considering me.

    Chairman Warner. The committee traditionally asks all of 
our nominees the following questions, and your indication of a 
yes or a no or such other comments you wish to make. I'll go 
left to right.
    Have you adhered to applicable laws and regulations 
governing conflict of interest?
    Dr. Chu. Yes, sir, I believe I have.
    Mr. White. Yes, sir.
    Mr. England. Yes, sir.
    Dr. Roche. Yes, sir.
    Mr. Rascon. Yes, sir.
    Chairman Warner. Have you assumed any duties or taken any 
actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Chu. No, sir.
    Mr. White. No, sir.
    Mr. England. No, sir.
    Dr. Roche. No, sir.
    Mr. Rascon. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in the committee's hearings?
    Dr. Chu. Yes, sir.
    Mr. White. Yes, sir.
    Mr. England. Yes, sir.
    Dr. Roche. Yes, sir.
    Mr. Rascon. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
in response to congressional requests?
    Dr. Chu. Yes, Mr. Chairman.
    Mr. White. Yes, sir.
    Mr. England. Yes, sir.
    Dr. Roche. Yes, Mr. Chairman.
    Mr. Rascon. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony in such appearances or briefings 
before Congress?
    Dr. Chu. Yes, sir.
    Mr. White. Yes, sir.
    Mr. England. Yes, sir.
    Dr. Roche. Yes, sir. Definitely.
    Mr. Rascon. Yes, sir. Absolutely.
    Chairman Warner. I'll defer to my colleague, Senator 
McCain, for his opening question.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman. I'd like 
to congratulate the nominees and express my appreciation for 
their willingness to serve. From what I can gather, all these 
nominations are noncontroversial but should be expedited as 
quickly as possible to help get about the important issues and 
challenges that face us in the post-Cold War era.
    Mr. England, in February 1996, the United States Navy in a 
briefing before this committee said the Secretary of the Navy 
supports competition for attack submarines. On April 25, 2001, 
this committee was informed by General Dynamics, which said I 
want to inform you that General Dynamics has tendered an offer 
to acquire Newport News Shipbuilding. It mentions several 
points, provides significant savings for the government, both 
nuclear shipyards will be retained, and will consider highly 
skilled workers as a national security asset. No layoffs are 
planned. There is no competition in nuclear shipbuilding nor is 
it feasible. What is your view?
    Mr. England. Senator, this is a critical issue. It 
obviously needs to be examined, but I have not worked in this 
area, sir. I have not reviewed these facts, but I would be 
happy to do so, if confirmed, and I will indeed, sir, take this 
action and get back to you on this subject.
    Senator McCain. I remember I said at that time in this 
committee that there would be a disappearance of competition in 
nuclear submarines. It is a fundamental economic principle as 
to how to reduce costs and to provide competition. I would hope 
you may be able to subscribe to that. The fact is we are not 
going to have competition in nuclear submarines as was patently 
obvious as we see this trend continue, which will then increase 
the cost to the taxpayers.
    I'd like to ask the three nominees for Secretary of the Air 
Force, Army, and Navy, beginning with you, Mr. White, do you 
believe we still have excess military infrastructure that can 
and should be reduced in the military?
    Mr. White. Senator, I do, based upon a preliminary review 
of the base structure and recent discussions and also 
preliminary or previous information that the department has 
provided.
    Senator McCain. Mr. England.
    Mr. England. Yes, sir. I believe all the studies have 
indicated since the last BRAC that there is excess 
infrastructure. Our approach will be to await the outcome of 
the strategic review, see what's required for the new force 
going forward, identify if we have excess at that point in 
time, and recommend work with this committee in terms of 
actions that should be taken.
    Senator McCain. Dr. Roche.
    Dr. Roche. Senator, I don't know all the details but 
certainly my sense from initial briefings are that that there 
is excess capacity. Where I come from, it is only the sensible 
thing to do if you have asset that is not earning for you, you 
close it down, you shut it down, and you get as efficient as 
you possibly can.
    Senator McCain. Mr. White, do you believe it is the best 
interest of the Defense Department to authorize additional 
military base closures and realignments to better align our 
military base structure to meet the requirements of the post-
Cold War era?
    Mr. White. Yes, I do, Senator, subject, as Mr. England has 
outlined, to the outcome of the strategic review and decisions 
on what the appropriate structure is to support that strategy.
    Senator McCain. Mr. England.
    Mr. England. I support the statement that Mr. White has 
just made, sir.
    Senator McCain. Dr. Roche.
    Dr. Roche. My sense is I would have to take a look at 
things, talk to Secretary Rumsfeld. I know what his views are, 
but again, if there is excess capacity, we will find ways to 
dispose of the excess capacity. BRAC is the way to do it and 
BRAC should be done.
    Senator McCain. Mr. England, do you intend to recuse 
yourself from decisions that have to do with General Dynamics?
    Mr. England. I do for those areas specifically where I have 
knowledge, sir. I cannot do this for my whole tenure, of 
course.
    Senator McCain. Yes, you can, Mr. England.
    Mr. England. Well, sir, I mean in areas where I have no 
conflict of interest, I would not expect to recuse myself. 
Where I do have a conflict, obviously I would, sir. If there is 
a conflict with prior knowledge or involvement, then I would 
certainly recuse myself. But if there is no conflict, I 
certainly would not plan to do that.
    Senator McCain. Who makes the suggestion as to that 
conflict, Mr. England?
    Mr. England. I expect I would at this point, sir, and can 
support it. I have agreed to ethically follow the requirements 
of the Department of Defense. I would do what was ethical and 
proper to do and if it appeared to be inappropriate, then of 
course, I would not do it.
    Senator McCain. In your view. Mr. England, that is not good 
enough. I hope that we can have discussions on exactly what 
your recusal will be before your nomination is approved by the 
full Senate.
    Mr. England. Yes, sir.
    Senator McCain. It is a very big corporation. You have been 
involved in a lot of issues that affect national defense, and 
the American people deserve the elimination of any taint or 
appearance that you may be involved in an issue that affects 
the future of the corporation of which you were previously 
employed, and we apply that standard across the board, Mr. 
England, not just in your particular case. I want to tell you, 
we need to work with you to exactly define your role in those 
decisions affecting General Dynamics before in my view your 
nomination is approved by the full Senate.
    Mr. England. Senator, I'll be more than pleased to work 
with you and your staff. I am pleased to do that, discuss this, 
and resolve it with you, sir.
    Senator McCain. Mr. White, will you not involve yourself in 
any decisions that include your previous employment with Enron?
    Mr. White. I don't plan to and we can discuss that more 
with you, as Mr. England has suggested.
    Senator McCain. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain. I'll make two 
observations. One, I forwarded a letter to the Secretary of 
Defense late yesterday indicating the need for this, Senator, 
and of course, I'll advise all Senators, of the availability of 
the earliest possible briefing from the Department of Defense 
with regard to both merger bids, one by General Dynamics, the 
other the Northrop Grumman for the Newport News Shipbuilding 
Company.
    It is important for this committee to involve itself in 
terms of looking at that impact on our national defense and the 
impact, as the Senator said, on the shrinking industrial base 
as that relates to competition. So as soon as I am informed of 
the Secretary's availability of those briefings, I'll make that 
fact known to the committee.
    Senator McCain. I thank the Chairman.
    Chairman Warner. I would point out that Mr. England, you 
have undertaken to do everything required by the Department of 
Defense, the OGE, and the committee with regard to your past 
affiliation with certain employers.
    You have retired from General Dynamics and you will divest 
all the stock in General Dynamics, am I correct on that?
    Mr. England. Yes, sir, you are correct.
    Chairman Warner. You will purchase a security that will 
guaranty the ability to pay for a pension?
    Mr. England. Yes, sir. That's correct.
    Chairman Warner. Thank you very much. The Senator from 
Georgia.

                STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. May I 
say that I want to thank you and Senator Levin for calling this 
important nomination hearing. Given the position of General 
Dynamics, it reminded me of Golda Meir's statement that she 
only wanted three generals from the United States--General 
Electric, General Dynamics, and General Motors. From time to 
time, we call on our private assets to help us out and that is 
what really matters.
    May I say that I'd like to thank Mr. England and Mr. White 
and Dr. Roche for coming by to visit with me before the 
hearing. I am sorry that time didn't permit me to visit with 
Mr. Chu and Mr. Rascon. We look forward to that opportunity in 
the near future.
    All of you have my support, and I thank you for your 
service to our country. The nominations that we consider today 
are critical. These nominees are another layer of civilian 
control over the military as described by the Constitution. Not 
the Atlanta Constitution, the real Constitution.
    Dr. Roche, I do thank you very much for yesterday's visit. 
I appreciate the discussion we had regarding a bee in my bonnet 
about the future of our Air Logistic Centers. You and I agreed 
that we need to maintain the capability to sustain our current, 
most important weapons systems, especially our future weapons 
systems. As you noted, the key to our survival of our ALCs is 
the partnership, I want to underscore, that partnership between 
the private sector and the public sector. As I really do look 
at, shall we say, the total assets of the United States to deal 
with national security or defense matters, it is obvious we 
have had a massive shrinking of the American military, about a 
third since the end of the Cold War and a massive shrinking in 
the private sector of power, of our, shall we say defense base. 
It does make sense to me then that these two great entities all 
focused on defense, public sector and the private sector in 
effect learn to work together in partnerships and as Ben 
Franklin said, better to hang together than hang separately. So 
I do think that the key word in the future for so many aspects 
of our defense involves the partnership between the public 
sector and the private sector because I don't think either 
sector can do it all, and we get the best bang for the buck and 
the best value for our military servicemen and for our country 
when we work together, so I just thought I would emphasize 
that. I think you are on board with that.
    Dr. Roche. I am, Senator, very much.
    Senator Cleland. Partnership between the private sector and 
public sector. However, the public portion of this commitment 
must be real. As such, I would like to again outline some of 
the commitments that you and I agreed upon yesterday.
    One, thank you for your commitment to meet with 
representatives of the ALCs, visit the ALCs and meet their 
community partners and appropriate congressional delegation 
members.
    Dr. Roche. Yes.
    Senator Cleland. Second, you committed to visit the ALCs 
which you visited a number of times, I know you have in the 
past, but we would appreciate that one more time. That's 
correct?
    Dr. Roche. Yes. I'll visit as one of the partners on the 
private side, but if confirmed, this time as the leader on the 
public side.
    Senator Cleland. I think your expertise on coming across 
the line and having an understanding of both sides of this 
partnership is going to be of great value to the United States. 
You committed to provide a strategic plan for the ALCs as you 
got into this matter and looked at it from every point of view 
that you would want to look at it, is that not correct?
    Dr. Roche. Yes, sir. I also committed to try to get at 
least a draft to you by the end of this calendar year.
    Senator Cleland. Thank you very much. Finally, you 
committed to review the Air Force's current strategy, which I 
don't agree with, of not building weapons in the ALCs. Actually 
putting the new weapons systems from my point of view, in the 
ALCs?
    Dr. Roche. I committed to it. I don't know what it says.
    Senator Cleland. I did notice that we were unfortunately 
sending a lot of our older facilities, our older weapons 
systems to the ALCs and the newer weapons systems, the ones 
that we really rely on when we go to war were not particularly 
in that chain. Particularly with the C-17 and the F-22. But 
thank you very much for your commitment, and I look forward to 
working with you in that regard.
    Any thoughts that you have that you would just like to 
share about the ALCs? For instance, do you think the Air Force 
needs its air logistic centers?
    Dr. Roche. Senator, we absolutely agree. In the long run, 
the government must have its own facilities, own shipyards, its 
own ALCs. There is a whole series of reasons that we discussed 
from technology, being able to maintain technical excellence 
for companies to move into generations where we have fielded 
forces and a partnership that I have had as a business person 
at Northrop Grumman with Warner Robins is one I am very proud 
of. It has worked very well. I think the issue that we both 
agree on that I am going to work with you on is twofold. First, 
how do we get the capital investment into the ALCs so they are 
ready at the appropriate time. We say we don't know when that 
appropriate time is when something is in its early stages, an 
airplane has to stay close to the contract, warranty period or 
somewhere. Somewhere there has to be a transfer for the long 
haul maintenance and upgrades in partnership with the private 
sector to the ALCs.
    The second issue that I have asked was that we have to find 
the careers in the ALCs are something people are proud to do, 
to be able to attract sharp young people and keep them. I thank 
you personally for your help in the program that the Air Force 
has, I just was briefed on in middle Georgia to find some super 
young people. Now, it is up to individuals like me to make sure 
the career is good enough so we can keep them.
    Senator Cleland. Just one more question.
    Chairman Warner. Senator, you take your time.
    Senator Cleland. Thank you very much, Mr. Chairman. Mr. 
White, thank you very much for your service to your country.
    Would you like to share with us your plan for committing 
one true Army out of the three components, active Army, Army 
National Reserve, and National Guard?
    Mr. White. Well, Senator, if confirmed, the historical 
relationship between the active Army and the Reserve component 
is a critical one that I intend to promote and sustain. 
National Guard units are today deploying side-by-side with 
active component people in Kosovo and other places around the 
world. The Reserves have been reshaped into a combat service 
support force which I completely support. It integrates them 
better into the total force and the affiliation between 
National Guard divisions and active Army corps I think is a 
very positive one, so if confirmed, I intend to spend a lot of 
time with the Reserve components promoting that relationship.
    Senator Cleland. Thank you very much for your insight. You 
just mentioned in my own home State, the close working 
relationship between Fort Stewart and the great infantry 
division there, and the 48th Brigade. They have both shared 
duties back and forth going back and forth to Kuwait and the 
Balkans and so forth, and we appreciate your dedication to all 
three of those branches of our Army.
    Let me just ask one question for all our service secretary 
nominees. An article in the newspaper reports that all services 
claim the current budget keeps the military on a death spiral 
for forced future base closure. I am not a supporter of BRAC, 
but I do believe there are a number of things the military can 
do to streamline its infrastructure without closing bases 
wholesale here in the United States. Two CINCs, General Ralston 
and General Schwartz, have testified before this committee 
recently that closing a significant number of bases in both 
Korea and in Europe would enhance effectiveness, efficiency, 
and quality of life.
    Also, programs such as the facilities reduction program 
that eliminates excess infrastructure on installations without 
necessarily closing those installations achieved results 
without incurring the costs of BRAC.
    Are you, Mr. White, willing to support streamlining 
military infrastructure overseas if it is requested, or at 
least consider it, if it is requested by the appropriate CINC, 
as a way to achieve infrastructure savings before we look to 
close bases here in the United States? Any feeling on that?
    Mr. White. Senator, I would certainly support the CINCs' 
requirement to consider that. The CINCs are our customers, and 
we would take a hard look at anything they suggest in regard to 
the infrastructure.
    Senator Cleland. Thank you very much.
    Mr. England.
    Mr. England. I think that is appropriate. They are our 
customers. We certainly take their recommendations and look at 
them in the context of those capabilities. I certainly would 
consider that, sir.
    Senator Cleland. Thank you very much.
    Dr. Roche. Senator, I believe any excess capacity should be 
done away with. If it can be done in a sensible way, fine. 
Whether it is done overseas first or home first, I don't think 
one should follow the other. I think they should look at any 
excess capacity and find ways to not ask the taxpayers to be 
paying for it. The proper means to do it will be requiring a 
great deal of homework.
    Senator Cleland. We have a distinguished group of panelists 
today, and they have my support. Thank you very much.
    Chairman Warner. We thank you, Senator. You make a very 
valuable contribution to this committee and you draw on a 
wealth of experience. You have served yourself with great 
heroism in the United States Army.
    I am going to take a few minutes, Chairman's prerogative, 
to make an observation or two and then ask a question or so.
    First, in my 23 years here in the United States Senate, 
coincidentally, my distinguished colleague, Senator Levin and I 
came to the Senate together, we have watched many wonderful 
people come into the position to which you have been designated 
and appointed by the President. I anticipate in due course 
there will be confirmation by the Senate. But I'd like to say 
that having had the privilege of being in that seat many years 
ago, nominated for the position of Secretary of the Navy, and 
having the intention at that time of serving 2 years, once I 
was there, I recognized what a great challenge and a great 
opportunity it was and I spent over 5. So I don't quite know 
how long your careers will be but don't set a terminal date at 
this point in time. Because once you are in, you will be seated 
in the front row of the greatest action that faces this country 
and challenge of any of us. You are working with the President 
of the United States in the role of Commander in Chief of the 
forces of this Nation, and you are working with the Secretary 
of Defense.
    We convened this hearing in a very friendly atmosphere, 
convivial handshake among you. Once you are confirmed, you are 
going to have to take the gloves off and fight for your 
respective services. When the concept of the Department of 
Defense was put together roughly in 1947, three military 
departments were established. From that point on, the service 
secretary, together with the chief of the service, are 
principal advocates of that service. But as I reminisced with 
Secretary Rumsfeld this morning, when I was Secretary of the 
Navy, he was in the White House and was the top assistant to 
the President.
    You are expected to take on the Secretary of Defense on 
behalf of everybody from the four stars down to the privates 
and the sailors and the airmen. Fight hard for resources. Fight 
hard for your department, and make your department the best 
within the structure of the totality of the Department of 
Defense. Dr. Chu has taken a note, and he should, because he is 
going to be one of the referees. Very often, you have to work 
through him to get to the Secretary. You will have your one-on-
one time with this distinguished Secretary and the Deputy, and 
all I have to say is to fight hard for your department.
    Now, Mr. England.
    Mr. England. Sir.
    Chairman Warner. On behalf of the Navy, and I have raised 
this issue this morning with the Secretary. We have a declining 
number of ships, roughly 315 today. When I sat there 30-plus 
years ago, we had over 700. We have come down from some high 
limit, and that is a long way.
    Yet, several things have not changed. First and foremost, 
this Nation is basically an island surrounded by two great 
oceans. Second, our concept of defense is one of forward 
deployed defense. We can thank God every day that our shores 
have not been crossed by an invading force since 1812. But that 
is because of the protection the seas have given us. The fact 
is that we engage first and deter threat far beyond our shores 
in the hopes that whatever may occur can be settled there, if 
necessary.
    Now, the Navy is the lifeline to convey the ground forces 
and to convey the supplies of the forward deployed armed force. 
Yet today we have this declining number of ships. The oceans 
and the need for forward deployment is still there, although 
wisely, I think, this President will lessen it in a prudent way 
in consultation with allies.
    That is the life line and the link. Also, the economic 
strength of this country is dependent on overseas trade and the 
protection of the sea to the world, and that responsibility 
falls heavily on the United States Navy. Now, do I have your 
commitment, and do you give it to the committee and indeed 
Congress, to fight hard to see that that level of ships, 
whatever it might be, that the President and this Secretary of 
Defense determine, is obtained and the necessary requests to 
Congress for authorization to build those ships are submitted?
    Mr. England. Yes, sir. I can assure you I will work very 
closely with the Secretary of Defense in support on his 
strategic review. I frankly do not know the exact number of 
ships, but it is bothersome that the number has continued to 
decline, and that at the current rate, my understanding is that 
we will be down to 240 or thereabouts out in 15 or 20 years. It 
is an area of great interest to me. It will be one of the very 
first topics to look at in the shipbuilding account--how we 
fund those accounts, what the right number of ships should be, 
and what the right mix of ships should be. So this is one of my 
priorities, sir. We will look at this as part of the strategic 
review.
    I can assure you if we have needs in those areas, we will 
definitely come back and seek the advice and counsel and help 
of this committee. You have my commitment to work with you in 
that regard. The very highest priority of mine is to look at 
our shipbuilding accounts, sir.
    Chairman Warner. I thank you. Mr. White, with regard to the 
Department of the Army, you will find as you go there that the 
Army has paid the price. This is not a political statement, but 
in the last many years, as a matter of fact, the declining 
defense budget started under President Bush, follows our 
current position and for 12 to 13 years we had consecutive 
declines in the defense budget. That was reversed some 2 years 
ago. I commend this committee for its initiatives in reversing 
that.
    The point is in those years of decline, the Department of 
the Army really had no recourse other than to draw down on 
their procurement, draw down in many ways on their 
infrastructure, whether it is the modern weapons or the 
buildings and the barracks which would deteriorate and indeed 
in your department. Now, that had to be done to find the funds 
with which to engage our forces beyond many fronts, notably, 
heavy expenditures involved in Kosovo. The Army also announced 
their plan for a transformation. They are recognizing that much 
of the doctrine, equipment, and other aspects of the Army have 
properly been devoted to the former Soviet Union, the Warsaw 
Pact, and the threats in Europe. At the same time, the Army 
continues to have very heavy obligations on the Korean 
Peninsula.
    Now, with the change of the concept of engaging forces and 
the diversity of threats, the demise of the Warsaw Pact, and 
breakup of the Soviet Union, the Army quite properly decided to 
transform from the bottom up. I ask for your commitment to go 
in and re-examine what has been done thus far on the concept of 
that transformation, and where necessary, put your own 
imprimatur on the President and that of the Secretary of 
Defense on the success of that transformation. Do you have a 
comment?
    Mr. White. Sir, I completely agree with you. Within the 
context of the national strategy that the Secretary is 
developing, we have to make sure the transformation of the Army 
conforms with that, and does so in a way that gives us the 
smooth transition from where we currently are to where we must 
be 10 years from now with the first unit equipped with the new 
systems coming along and sustained readiness, so the first step 
in my opinion is agree to the national strategy, the security 
strategy, and the land power component of that strategy and 
then conform the Army's transformation to it, and then get on 
to making that vision a reality. You have my commitment that 
that will be a top personal interest of mine.
    Chairman Warner. I think my colleague, Senator Levin, and 
other members of the committee will observe that in the past 2 
or 3 years in consultation with previous secretaries of 
Defense, we pointed out that the costs of that projected 
transformation as originally laid down by the previous 
administration, simply did not match other budgetary 
considerations. You have to bring into alignment, fight hard 
for your share of the budget and some more, but you have to 
bring into alignment the projected costs and the budget 
allocation being given by the Secretary of Defense.
    Mr. White. I will do that, Mr. Chairman.
    Chairman Warner. Dr. Roche, I think you are the first 
sailor in history ever to take over the Department of the Air 
Force, am I correct?
    Dr. Roche. I don't know, Senator. I may be the first dumb 
sailor to take over the Department of the Air Force, however.
    Chairman Warner. That is a novelty in itself. You have a 
heavy responsibility in the following: the aging of the 
aircraft. Again, the Secretary this morning pointed out and the 
perception that there is no nation that is going to put forward 
an aircraft comparable to the F-22, the other models of 
procurement now. Heavy decisions have to be made in that area. 
I am not suggesting how they are to be made at this point in 
time.
    In my judgment, it is imperative that the United States of 
America maintain the superiority in the sky.
    We could not have achieved our successes in very 
challenging military operations without air superiority. 
Similarly, our submarines have made the seas something the 
United States rules.
    The F-22 has the capacity, by virtue of its stealthiness, 
its super crews, and its advanced weapons and sensors, to 
really motivate an opponent never to try to build a plane that 
is going to be comparable. It just isn't going to happen. 
Presumably, we will build this plane, and we will keep 
improving it. It also means that an opponent will recognize for 
the first time that we can have stealth aircraft over opposing 
territory and be able to attack anything that may be heading 
towards our troops and meet those aircraft in the enemy's 
territory, not on our territory.
    Dr. Roche. That is unique in the history of air warfare, 
Senator. I very much believe in that program, but there is an 
issue of aging aircraft across the board that is troubling.
    Chairman Warner. I am now going to yield to Senator Levin. 
My next round of questions is going to relate to quality of 
life for the men and women of the armed forces. We cannot hope 
to achieve any of those goals without their continued 
commitment which this force has had since its very inception.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. This committee has 
a relatively new subcommittee, called the Emerging Threats and 
Capabilities Subcommittee, which is looking at the new threats 
we face following the end of the Cold War, particularly the 
terrorist threats both from nations, individuals, and groups. 
The subcommittee focuses on the asymmetric threats that we face 
both here and abroad. This committee has had many hearings on 
this subject. There are hearings being held now in the 
Appropriations Committee on the question of how the Federal 
Government should be organized to meet the terrorist threat and 
what is the proper role of the Department of Defense in that 
organization.
    As the chairman mentioned, our shores have not been crossed 
by an invading force for almost 200 years. But our shores have 
been crossed and breached by terrorists, both on the Atlantic, 
at the World Trade Center, and in the Pacific with the efforts 
of some terrorists to come here. They were caught, thank God, 
before they were able to use their terrorist instruments. That 
probably had something to do with the events in Seattle which 
were scheduled. So we do face real new threats. I would just 
hope that as our new service secretaries you would spend some 
time focusing on those emerging nontraditional threats. The 
ones that are real and the ones that have been used. They are 
not just here. Our shores have been breached, overseas against 
our forces. The U.S.S. Cole is one of the more recent examples. 
Also, recall the terrorist attacks against our embassies that 
we had in Africa. I am just wondering whether or not our 
nominees have any comment on that and whether you agree that 
you are going to need to spend time and resources addressing 
these emerging and asymmetric threats that I just described?
    Mr. White. Senator, I think it is clearly a matter that 
requires time and resources. We intend to do our part, if 
confirmed, to deal with that from an Army perspective. I know 
Secretary Rumsfeld has discussed this with you in his hearing, 
as has Deputy Secretary Wolfowitz and we are all concerned 
about it and we will give it the appropriate attention.
    Mr. England. Senator Levin, of course, the Navy is already 
keenly aware of this issue after the U.S.S. Cole. I understand 
that they are taking steps and you have my assurance, if 
confirmed, sir, that this will definitely be at the top of the 
agenda. This is obviously a threat, not just here in the United 
States, but overseas. All of our bases and not just that, but 
of course families. This is indeed a serious problem and will 
indeed get my attention and it will receive necessary 
resources. So if confirmed, we will be working with you, sir.
    Dr. Roche. Senator, I know that Secretary Rumsfeld and 
Deputy Secretary Wolfowitz have worried about this problem. As 
a member of the staff of this committee, I have seared in my 
mind that there were members of this committee who warned me of 
terrorism. I can tell you exactly where I was when that 
explosion occurred. I take this very seriously.
    Senator Levin. There is going to be a whole focus on 
modernization, transformation, and more traditional challenges 
than we had but this is the new great tranche. We are going to 
need your attention to this at the same time we are trying to 
transform and at the same time we are trying to modernize and 
meet the more traditional threats. So, I welcome that 
commitment on your part to address the emerging threats and the 
terrorist threats that we have seen and already operate against 
us.
    Dr. Chu, one of the more frequent reasons that have been 
given by service members for leaving the service is the large 
amount of time away from home that is currently being demanded. 
What new initiatives, if any, are you planning if confirmed, to 
manage this increased personnel tempo?
    Dr. Chu. Thank you, Senator. I appreciate that this is 
often cited and, indeed, I think Congress has provided new 
legislation on this matter. If confirmed, I look forward to 
working on this as a priority issue to understand the optempo 
problem and what we might do best to confront it.
    Senator Levin. It is been often said that the military 
recruits individuals, but retains families. Spouse employment 
is a significant issue when it comes to retaining families. I 
am wondering what initiatives you are going to take in order to 
try to improve the situation for spouses?
    Dr. Chu. I agree with you, Senator, that the department can 
do a lot better on this front. I think there are two areas that 
we can look at more vigorously. One is whether the department 
could be of greater assistance, specifically regarding 
opportunities in the federal sector and with the Department of 
Defense itself. Second, can we harness new technologies 
available to provide better information and referral sources to 
these individuals?
    Senator Levin. Let me ask all of our nominees for service 
secretary this question. There have been some discussions in 
the press that Secretary Rumsfeld intends to institute a board 
of directors-type of approach to manage the services and the 
services' major appropriations. I am wondering if each of you 
who have been nominated to a service secretary position would 
describe your understanding how that board of directors-
approach is going to function?
    For instance, is the board of directors going to manage 
major acquisition programs? Will the department, do you 
believe, be seeking changes in legislation that mandates a 
direct reporting change for major acquisition programs from the 
service acquisition executives to the Under Secretary of 
Defense for Acquisition? What do you understand to be meant by 
this board of directors approach and how would it apply to 
major acquisition programs? Why don't we start with you, Dr. 
Roche?
    Dr. Roche. Senator, thank you. The secretaries talked about 
having a senior management committee which would consist of the 
three of us as you see, plus the Under Secretary of Defense for 
Acquisition, to be chaired by the Secretary himself and Mr. 
Wolfowitz. The point of this is to bring together the business 
part of the department, not the operational part. It is a 
chance for us to show jointness at the very top, Senator, to 
work together where we can work together.
    There are times when we need to rationalize our research 
and development programs. By virtue of our backgrounds, we have 
cross knowledge of the other services. I will be looking to 
Gordon for his wisdom on things. He may even ask me a question 
now and then.
    The point is we would be working together so that when we 
have a position, whether it is R&D or something else we go 
forward. I see no need for change in legislation. This is the 
executives of the department the Secretary is nominating to you 
and if we are confirmed, to give us a fixed process to improve 
the processes in the building. So for instance, we are looking 
at overhead costs of the defense agencies. Can we get that 
down? Can we find the best practice in reducing costs and be 
more efficient in our own service to have a share of that? Can 
we resolve difficulties between the services at our level? We 
see just lots of examples whereby the close relationship 
continuing that has been fostered by the way we have gone 
through Pentagon 101 together, that this is something that is 
very good. Yes, we will compete and I wish Senator Warner were 
here because there are times Gordon and I have competed against 
each other very heavily but we know there are times it is in 
the best interests of our country to be able to support each 
other to do the right thing.
    Mr. England. I think Dr. Roche articulated that very well. 
Hopefully with the senior management team we will be able to 
examine policies, procedures, and benefits at the top. We need 
to be wearing two hats, one as service secretary, one as part 
of the senior management council. In my own judgment, we do 
this a lot in the business world for the sake of efficiency and 
effectiveness. It should be effective as part of managing the 
Department of Defense and my view was this was necessary, 
frankly, at least for me to consider coming to this position so 
that we could indeed look at efficient practices within the 
Department of Defense. So again, I would echo what Dr. Roche 
said. This should be very effective. It should not require any 
change that we know of, at least at this time.
    Senator Levin. Mr. White.
    Mr. White. I agree with what Mr. Roche and Mr. England have 
said. The concept is to have a small body that operates like 
the executive committee or the management committee of a 
corporation and dealing with things that are truly important, 
particularly from a business perspective for the department, 
and deal with them in an effective way because this committee 
will involve all of us on a personal basis without a great deal 
of staff or bureaucracy associated with it, so I am quite 
excited about the prospects of it and if confirmed, I look 
forward to participating in it.
    Senator Levin. My time is up.
    Senator Inhofe. Thank you.
    Senator Levin. Senator Smith is next.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. I think we have arranged I will be next. As 
I said at the very beginning of this, Senator Smith and I are 
both on another committee. It happens to be a committee that I 
chair, the Transportation Committee, at the same time so I will 
try to get my questions in and I won't be able to return, if 
that is all right.
    First of all, Dr. Roche, I'll say to all of you I 
appreciate the time you have given me and helping me in 
becoming familiar with you. It is the first time I can remember 
a team coming in, all of whom know each other and respect each 
other and will be working together and also working very 
closely with the uniformed services, so I am just real pleased 
that all of you are going to be here. We all understand the 
difficult issue of depot capability. You and I talked about 
this, Dr. Roche, in my office. I have never, I have always 
thought that a formula, 50/50, 60/40 is somewhat arbitrary but 
nothing better has come along. I understand that while in my 
absence Senator Cleland asked if you would be willing to make 
some tours around to become familiar, and I want to make sure 
that Tinker Air Force base is in that tour.
    Dr. Roche. Absolutely, Senator.
    Senator Inhofe. With this problem, one of the problems we 
have in the ALCs is everyone agrees we have to keep a core 
capability in our ALCs and in shop. At the same time, we have 
not modernized them to the degree that we have to go. If we are 
to have competition, we would have to do modernization before 
that can take place. In our new modern platforms, they have 
been outsourced and those are the platforms that would be most 
dependent on if a war should come along and I'd like to have 
your remarks on the record as to your feelings about the future 
of the ALCs and how you see it.
    Dr. Roche. As I said earlier, Senator, and I thank you for 
the question, I believe based on my experience that there will 
always have to be naval shipyards and ALCs. That the government 
has to have that. We build equipment now that lasts a very long 
time. There is a period in the time of life of a system when it 
has to be close to its contractor. You are making early 
changes. You are in a warranty period. There is a long period 
of time of sustained maintenance, sustained overhaul, upgrades, 
program improvements, et cetera, that typically have relied on 
the government facilities and I think always will. The key is 
that this is not us versus them.
    My own experience working with Warner Robins and I know the 
experience of my firm working with Tinker on the B-2 program 
shows examples of where we both can work together for the 
betterment of the system. The ALCs will be the long-term 
institutions that will in fact be doing the maintenance.
    You raised two points, sir, that are quite right. First, we 
have to find a way to modernize the capital equipment without 
punishing the particular program and loading the costs of that 
on to a particular program. I don't know the accounting 
processes that are used in the department, and I'll be learning 
them, but I think it will be wrong to worry about equipment 
becoming more expensive.
    The second issue that the ALC faces is exactly what is 
faced by the scientific engineering and by people in the 
defense industry that we are soon to lose the people who have 
the corporate memory of how to do this exquisite work, and we 
are talking about very high-tech in a number of cases. We are 
going to lose those folks because they are nearing retirement. 
We have to find ways to attract young people both the defense 
industry and ALCs and to retain them and in the Air Force 
itself both civilians and military we have to find ways of 
having scientists and engineers who are there who can be part 
of this larger process working with the ALCs.
    Senator Inhofe. I appreciate that very much. As Chairman of 
the Readiness and Management Support Subcommittee, I have been 
around and done a lot of hands-on work at the various 
installations around the world. I have come to the conclusion 
that everything is hemorrhaging, not just one or two things. I 
am talking about quality of life, modernization, force 
strength, all of the above, but the Chairman mentioned a couple 
of things in his questioning that I had in mind that on some of 
these systems, there is this euphoric attitude that has always 
been out there that somehow, well, maybe we have problems in 
the military but what we have is better than anybody else has. 
Well, that is not true any more. I was very proud and wanted to 
get on record with you that General John Jumper, the first one 
to come up and admit that with the SU series coming out of 
Russia that some of the people in China at this time, have air-
to-air capabilities that we don't have. So modernization is 
going to be necessary. General White certainly in the area of 
artillery and rapid fire, we are not number one and we are 
inferior in our systems. The system that I hear as I go around 
to the Army bases that is most needed and is the crown jewel 
right now and that would be the Crusader program. I'd like to 
have you share with us your feelings about Crusader.
    Mr. White. Senator, as you have mentioned, the Army in my 
history has been traditionally outgunned in indirect fire 
systems. We never adequately addressed that in the 1970s and 
1980s. We have currently fielded a variety of a Howitzer that 
was first built in the early 1960s. To the extent that the 
strategic review relies upon land power as a critical component 
and those decisions have not been made by the Secretary, the 
ability to deliver long-range precision munitions from an 
effective modernized launcher to me is critical to the 
application of land power. So I intend to spend, if confirmed, 
a great deal of time examining the Crusader program. It is a 
program the Army has funded within its budget lines and made 
the sacrifices to do so and it would seem to me that it is 
fundamental not only to the existing force but the future of 
the transformed force as we go forward.
    Senator Inhofe. Well, I appreciate that. I may be making 
the same request of you as I did to Dr. Roche to come out and 
see some things.
    Mr. White. I commit to you that I will personally visit 
Fort Sill and observe the side-by-side comparison as I think 
Senator Warner and yourself and other members of the committee 
have done, if confirmed.
    Senator Inhofe. I have asked Chairman Warner if I can take 
a little bit longer since I will not be having a second round. 
I'll be chairing the other committee. Just real quickly if I 
could.
    Senator Levin. Let me ask Senator Nelson. He was next.
    Senator Inhofe. Just another couple minutes. First of all, 
rather than get a long answer here, we may want to ask the 
answer to be on the record, but, and that is the issue of 
encroachment. Just in this morning's Los Angeles Times it says 
after 7 years in the Marine Corps, Sergeant Johnny White of 
Newark, New Jersey has a new skill, tortoise spotting. White is 
among 30 noncommissioned officers certain to make sure that no 
desert tortoises are harmed. I have gone to Fort Bragg, to Camp 
LeJeune, and other places. It is a very serious problem. That 
is just one form of encroachment. All of your services will be 
facing this. The one I would single out, I'd like to get your, 
including you, Dr. Chu, your response to the encroachment 
problem, what you plan to do about it, including everything 
including spectrum.
    But what I would like to have just from this meeting here 
and perhaps starting with you, Mr. England, one of the serious 
encroachment problems we have is in our live ranges around the 
world. They are disappearing, and the most critical one right 
now for east coast deployment is that of Vieques. We have 
looked to see and found that there is no alternative site for 
live fire to Vieques which means if we send our troops over 
they will be arriving into a battle environment without any 
live fire training. I would like to know your feeling about 
Vieques and then the others, if there isn't time, to do it on 
the record. Because this is not just a Navy issue. If we allow 
that to be closed because of public pressure, that is going to 
affect every Air Force range, every Army range, even in my 
State of Oklahoma, Fort Sill, so if you can respond in terms of 
the significance of the range of Vieques in your opinion?
    Mr. England. Senator, my background experience is that all 
teams scrimmage, whether it is a football team or basketball 
team. They all have to scrimmage and if you don't have a chance 
to scrimmage as part of practice, you don't do well when it 
comes to game time. The discriminator for the United States' 
Armed Forces is our training. Our training is superb compared 
to other countries so that is very important to us. The ability 
to scrimmage before we go into combat is very important, so the 
range issue is a critical one for all the services. Vieques is 
perhaps the first one that we have really faced in detail, but 
this will be an issue that we will have to address across the 
Department of Defense with my colleagues. It is one that we 
will have high on our agenda. Complex issues are going to have 
to be worked, but definitely high on our agenda. It is critical 
that we be able to train our forces. Vieques is very important 
because today is the only base we have for the United States 
Navy and Marine Corps to do combined training.
    Senator Inhofe. My time has expired and I thank Senator 
Nelson for his patience here. I look forward to working with 
all five of you. I think this is a great unified group that is 
going to get us out of some of the problems we have right now. 
Thank you so much. Senator Nelson.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Where will we train if we don't train 
in Vieques?
    Mr. England. That is the issue, sir. We do indeed need 
facilities to train. I have not myself been able to look at any 
alternatives. My understanding is that that is a critical issue 
today because that is the only base we have to do combined 
training before our sailors and marines are deployed overseas.
    Senator Bill Nelson. The United States has given its word 
with regard to a referendum. The United States being there, and 
politically working the ground on what is going to be the 
outcome of the November referendum. If the referendum goes 
against the United States, we are out, according to our 
agreement, so what do we do?
    Mr. England. Senator, I am going to have to defer until I 
have an opportunity to really get into this. I frankly only 
today have a perceptual view of this, but I will indeed put 
this on my agenda.
    Senator Bill Nelson. That is fair. If you would share with 
me your thoughts when you draw that conclusion. I have asked 
that question of a lot of active duty United States Navy folks 
and I don't get a definitive answer at this point.
    Mr. England. Senator, I'll tell you, if and when confirmed, 
I will definitely work this with you. This is an important 
subject. Again, I have not had the opportunity to work as I 
have not been allowed to until confirmed, but if confirmed, 
I'll definitely get back with you, sir.
    Senator Bill Nelson. Let me plant another seed. There is an 
issue of whether or not we will have a nuclear aircraft carrier 
stationed in Japan. That, of course, is a sensitive issue from 
the military standpoint. They would prefer to have a nuclear 
carrier. But if the decision of the administration is not to 
replace the carrier that is over there with a nuclear carrier, 
the likely conventional carrier is the U.S.S. John F. Kennedy, 
which is stationed at this time in Mayport, which is in the 
City of Jacksonville. My concern at that point, if it is the 
U.S.S. Kennedy that goes to Japan in 2008, that we not have a 
Navy policy on the east coast that there is only one port for 
carriers, as opposed to keeping the two ports that we have now. 
I'd like any of your thoughts on that.
    Mr. England. Senator, I am not at all familiar with this 
issue, having not heard this issue discussed, so again, I'll 
just have to take an action item for you, sir, and get back 
with you, if confirmed, sir.
    Senator Bill Nelson. OK. Do you want to comment or do you 
want to get back later about the deferring of the procurement 
of the T-6 training aircraft?
    Mr. England. I definitely need to get back with you on 
that, sir.
    Senator Bill Nelson. Let me ask all the three service 
nominees a question that you all can answer. All of you have 
very distinguished backgrounds, particularly in aerospace and 
defense. As you come to this position of responsibility leading 
this portion of the Defense Department, how do you protect 
against your conflicts of interest with your former employers? 
Why don't we just start with you, Mr. White.
    Mr. White. Well, I think first of all, Senator, we are 
obligated to follow both the letter and the spirit of the law 
in terms of potential conflicts. I totally intend to do that. 
Second, I am coming from an energy company, Enron Corporation, 
which has a very slight relationship with the Department of the 
Army and a very small one with the Defense Department. I will 
personally commit to you to avoid any, even appearance of 
conflict in terms of any future relationship that Enron might 
choose to have with the Department or attempt to have with the 
Department.
    Mr. England. Senator, my background is General Dynamics, 
and of course, I am very active in the defense business. I have 
agreed to divest myself of all of my holdings in General 
Dynamics, all defense companies, and all companies that do 
business with the Department of Defense in order to have a 
surety bond against my retirement. I have two retirements: 
General Dynamics and Lockheed Martin. Both of those would be 
bonded so I would have no reliance on those companies. Where 
there is a conflict of interest, I definitely would recuse 
myself.
    However, General Dynamics is in a lot of businesses and 
businesses keep consolidating so over time, you move away from 
much of the knowledge regarding what many of those companies 
are doing. So where there is an obvious conflict, where there 
is an obvious problem, I will recuse myself. But hopefully, 
there are many situations where you can deal in the real world 
with these companies as time goes on because there are very few 
companies left that do defense business in the United States. 
So I do not believe you can completely recuse yourself from 
everything dealing with your former company. Certainly where 
there is an evident conflict, one would recuse oneself, and I 
would do that, sir, and sever all economic ties to my previous 
employers.
    Dr. Roche. Senator, just as when I was the Democratic staff 
director of this illustrious committee, I severed all my ties 
with the Navy and there were naval officers that noticed that. 
We have a mandatory retirement of 65. I am 61. I am too old to 
return back to my company. I will have sold all stock, all 
interest, I will have severed all ties and I don't see a 
situation where I would have to recuse myself under those 
circumstances because I will abide by the law and I will do the 
job of the Secretary of the Air Force with Secretary Rumsfeld 
and under President Bush as ethically as you can imagine.
    Senator Levin. Just to add one thing, you also are putting 
up a surety bond?
    Dr. Roche. Absolutely. Yes.
    Senator Levin. Relative to your retirement?
    Dr. Roche. Yes, sir.
    Senator Levin. Just to complete the record. Thank you.
    Senator Carnahan is next. A number of Senators are going to 
run over and vote and try to get back in time, but Senator 
Carnahan, I think you have the time here.

               STATEMENT OF SENATOR JEAN CARNAHAN

    Senator Carnahan. I would like to thank the distinguished 
panel here and thank you for the straightforward manner in 
which you have answered the questions that have been presented 
to you. Dr. Roche, I'd like to ask you this question. I am 
concerned about the age of our long-range bomber fleet. The B-
52 program is halfway through its 80-year life span. The B-2 
program is 30 years old. The average age of these aircrafts is 
22 years. Can you tell the members of this committee about the 
Air Force's plan to sustain our long-range bombing fleet?
    Dr. Roche. Senator, first of all, coming from Northrop 
Grumman, we are the builders of the B-2 bomber and my part of 
the company actually produces the radar for the B-1 bomber and 
the electronic warfare on the B-52. Up to this point and not 
presuming confirmation, I keep my day job. I don't know what 
the Air Force's plan is. I have made sure that they have not 
briefed me on anything that might be a competitive situation 
but, if I may offer a personal view, ma'am, one is that we use 
the word bomber these days really to mean large aircraft. 
Smaller aircraft are also bombers. We are talking about 
delivering weapons from the sky to the ground but a bomber, or 
any airplane that launches a standoff cruise missile, is also a 
bomber. The average age is between 22 and 25 years as has been 
briefed to me. I believe, given our desires for range and 
payload, that we are going to want to have this be a vibrant 
arm for the future. That consists of a number of things. It 
consists of appropriately putting the weapons on to provide a 
multiplier effect for those platforms, so for instance, there 
are some exciting proposals in the case of the B-2 bomber to 
make it an exquisite bomber dropping extraordinary precise 
weapons and carrying lots of them because we can be so precise, 
we can go to smaller tonnage.
    Similarly, there are proposals to have our B-52s not 
penetrate but be just big trucks carrying standoff cruise 
missiles. In the long run, we should be starting, in my own 
personal opinion, research on an advanced bomber beyond that, 
one that can go at high speed, one that can go alone, and one 
that is appropriate for the strategy that will come out of 
Secretary of Defense Rumsfeld's review.
    Senator Carnahan. Thank you. I was just wondering, too, how 
might our aircraft requirements change if the Department of 
Defense reassesses the current two major theater war strategy?
    Dr. Roche. It depends on the outcome of the review, ma'am. 
It is unlikely that we will all of a sudden decide we don't 
need air power. Air power is there but I believe that one of 
the things that Secretary Rumsfeld is trying to get us to think 
through, is what is the basic business of our services, our 
departments with regard to the strategy. My own sense is the 
Air Force is the business of global reconnaissance and strike. 
Strike may be delivering Army troops, but the reconnaissance 
part is one that you have seen emphasized by Secretary Rumsfeld 
in the recent weeks by concentrating on space and making it the 
point that we need space for operations of the Air Force, Army, 
and Navy. It is at this level that I see change coming. It is a 
change in the emphasis and I think it is long overdue, ma'am.
    Senator Carnahan. Mr. England, I understand that the Navy's 
F-14 program is over three decades old and the Navy is now 
procuring more F-18s to replace the older generation aircraft. 
Could you discuss with us your views on the importance of 
modernizing the Navy?
    Mr. England. Senator, I am not at all familiar with the 
plan of replacement. I have not had that insight into the Navy 
yet, but certainly support modernization for all of our weapons 
systems, surface, subsurface and air, so modernization is 
obviously important for the country, for our military. However, 
I am not familiar with the specifics of any given program.
    Senator Carnahan. How do you feel that the joint strike 
fighter will complement the F-18?
    Mr. England. Senator, I just have not had the briefings to 
have that conversation. I would be happy to have it with you if 
confirmed, Senator.
    Senator Carnahan. One final question, Mr. White. 
Historically the Army has not always been able to meet its 
military maintenance and repair requirements. This has caused 
diversions from base operations and training funds. Should you 
be confirmed, would you consider this issue as the Army draws 
up future budget plans?
    Mr. White. Senator, I think it is a critical issue to deal 
with and I will give it my attention.
    Senator Carnahan. Thank you, Mr. Chairman.
    Senator Levin. Thank you, Senator Carnahan. Mr. Rascon, on 
draft registration, do we need to do it any more or do our all-
volunteer forces seem to be recruiting sufficiently? Our 
retention is getting better. Why should we maintain this 
registration process which is costly and doesn't serve any 
purpose?
    Mr. Rascon. Probably the most important thing that we need, 
we need a deterrent that is going to be there in case something 
does come about. We end up talking about a situation right now 
in which this country may face a terrorist threat. It may not. 
In 1941, we weren't ready for a war. Korea came about. Vietnam 
came about. We ended up with the fact that we had to come back 
and get young men ready quickly into the military.
    Senator Levin. Regardless of whether divestiture is 
required by law, it has been our policy. Total divestiture 
rather than recusal because we really want DOD officials to be 
free to manage the department.
    Now, have each of you complied with that policy first of 
all, or are you going to comply with that policy?
    Dr. Roche. Yes, sir. All 37,200 stocks, I will not own one 
of them. Certainly none of the defense stocks or anybody who 
does business with the Defense Department.
    Mr. England. Yes, sir.
    Dr. Chu. Yes, sir.
    Mr. White. Yes, sir.
    Senator Levin. Nobody who does business with the Defense 
Department?
    Mr. White. Regardless of how de minimis that relationship 
might be.
    Dr. Roche. I will divest my Disney stock.
    Senator Levin. You are going to have to figure out any 
company that does business with the Federal Government?
    Dr. Roche. Yes, sir. It is on the Internet. They have been 
informed they will execute that, if I am confirmed.
    Mr. White. Makes you worry about a company that is not on 
the site.
    Senator Levin. Makes me worry about the recusal, frankly, 
because if a company does business with the Defense Department, 
no matter how little, that isn't on that site, then apparently 
we are supposed to know about it even though it is not on the 
site.
    Dr. Roche. The site is updated periodically and when a 
financial advisor or those of us who may choose to buy stock, 
we are required to check that site first.
    Senator Levin. Is that then the end-all and be-all of that 
site? If it is not on that site, you are safe? Is that your 
understanding?
    Dr. Roche. Yes. We are not going to do anything dumb.
    Senator Levin. Is that a commitment?
    Dr. Roche. That is a commitment.
    Senator Levin. I think there has been some testimony this 
morning which is slightly different from what we just heard 
from Mr. England particularly. I think you suggested that you 
may be recusing yourself relative to matters that General 
Dynamics has ongoing with the Defense Department even though 
you totally divested yourself in General Dynamics. I would 
suggest the following--that this be clarified, that you get us 
the answers to that question, particularly you, Mr. England, 
given your answers are slightly different, I believe, than the 
other nominees. You talk to your ethics officer in the Defense 
Department and see precisely what your policy is going to be on 
that and that you give us a written answer to that question 
within the next 24 hours, if you can. It shouldn't take you 
long. I think we do need some clarification from you on that 
issue because I think if you did disqualify yourself on any 
matter involving General Dynamics, that would then raise a 
question about the others who are going to continue or who are 
not going to disqualify themselves in matters involving their 
former companies because they totally divested themselves of 
any interest in those companies.
    Mr. England. Sir, I will be pleased to give you a written 
statement. First, let me clarify for you. I will divest myself. 
I have agreed to this, certainly from every company that does 
business with the Department of Defense. I have taken all the 
surety bonds. My only comment was since I recently left General 
Dynamics, matters that may have been under consideration, that 
I was involved with while still with the company, those I would 
recuse myself from because I could have a conflict in terms of 
knowledge.
    Senator Levin. What's the conflict if you no longer have an 
interest in the matter? I don't want to disagree with you. I 
want you to get some advice from the ethics officer from the 
Department of Defense on that issue because that may be a 
different standard than others are applying and we are going to 
have different standards and that is not going to be helpful. 
This is an issue which seems to be done in a way which is 
consistent. There is a policy and I would suggest that you 
would consult your agency's ethics officer before you are 
confirmed to get exactly what your position is, and that you 
share this with your colleagues who are here this morning so 
that they know exactly what your position is going to be, and 
provide a written answer to the committee as to what your 
position is going to be on that.
    [The information requested by the committee, as well as a 
subsequent letter clarifying the committee's position follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Levin. My question for each of you is the 
following. Will you consult with your agency's ethics officers, 
if confirmed, to determine what circumstances, if any, require 
you to recuse yourself from specific decisions of importance to 
either or any of your departments?
    Mr. White. I will, Senator.
    Mr. England. Yes, sir.
    Dr. Roche. I already have, Senator, and there is only one.
    Senator Levin. My question is will you?
    Dr. Roche. Yes, sir.
    Mr. Rascon. Yes, sir.
    Dr. Chu. Yes, sir.
    Senator Levin. In addition to that, we will need your 
statement after that consultation prior to confirmation. Share 
it with your colleagues here and give it to the committee so we 
can all be following a consistent policy here. My colleagues 
who were not able to make it back after the vote, I know are on 
their way. We are going to recess for a few minutes until one 
of my colleagues gets back to continue the hearing. 
Congratulations, and again thank you, and thanks to your 
families.
    [The committee stood in recess.]

               STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. The committee will come to order. I would 
note my meteoric rise from least senior member of this 
committee to the temporary chair. It gives me a great sense of 
power. I want to first welcome all of you here today and give 
you my personal thanks for your willingness to serve your 
country. I am particularly delighted to see my friend, Mr. 
Rascon, here today.
    We first met last December on a trip with then Secretary of 
Defense Bill Cohen, when we were visiting the troops in Bosnia, 
Kosovo, Germany, and Macedonia. His telling of the story of how 
he came to be a Medal of Honor recipient so moved the young men 
and women who were serving in those very remote outposts. I 
know his family is very proud of him, and I am delighted that 
he has been nominated for this position. I also want to note 
that his son, Alan, is having his birthday today--so this is a 
very special day indeed.
    Mr. England, I want to follow up on some of the comments 
made by the committee's chairman, Senator Warner. I believe 
that strong leadership is needed to address the declining naval 
shipbuilding rate and our shrinking industrial base. You and I 
had an opportunity to discuss this issue briefly in my office, 
but the numbers are truly very troubling. The Navy has shrunk 
from a fleet of 595 ships in 1987 to approximately 315 today, 
while during that same period, deployments have increased by 
more than 300 percent. Moreover, the regional CINCs have 
repeatedly warned that the fleet is stretched perilously thin 
and needs to be increased, by some estimates, to a 360-ship 
Navy to meet present mission requirements. Moreover, at the 
current low rate of production, the cost per ship is going to 
increase and the efficiency of our yards will go down. The 
numbers are just as clear as they can be. At the current rate 
of investment, our Navy is heading toward a 200-ship fleet, 
which by every study that I have seen is alarmingly inadequate. 
So I raise this issue publicly with you only to bring to 
attention to what I see as a critical need for rebuilding and 
recapitalizing the naval fleet. What are your thoughts on the 
current rates of production and what are your thoughts on what 
we need to do to rebuild the fleet?
    Mr. England. Senator, I know the rates are low in the 
industrial base. I also understand that is costly. I do know 
the number of ships is going down and I heard the number of 240 
ships at our current rate. I do not know what the size of the 
fleet should be. I have heard the report that the CINCs have 
requested 260 ships or thereabouts. So I do not know the 
specific number. We will wait for the outcome of the strategic 
review, but shipbuilding is high on my agenda.
    This is the United States Navy, so ships, of course, are 
the foundation of the Navy. I made the comment in your office, 
without ships it is like a football team without footballs, so 
we definitely do need ships in the Navy. That number, I don't 
know the specific number, but it is high on my agenda. It is a 
priority. It is an area we will look at very carefully. We will 
work with Secretary Rumsfeld to define this but if indeed there 
is a need for ships, I will definitely make it a priority to go 
work this issue of added ships and working with this committee, 
with you, and the chairman to do that. So if confirmed, I will 
definitely work with this committee and on this issue.
    Senator Collins. Thank you. You mentioned the strategic 
review that is currently under way. I have been very concerned 
by press reports which suggest that the DD-21 is being targeted 
by this review. This is puzzling to me, given that it 
incorporates the kinds of leap-ahead technologies that 
Secretary Rumsfeld and the President have embraced. I just want 
to alert you to the fact that today, along with the majority of 
the members of the Seapower Subcommittee, including the chair, 
Senator Sessions, and the ranking minority member, Senator 
Kennedy, and our majority leader, Senator Trent Lott, that I 
have sent a letter to Secretary Rumsfeld raising our concerns 
about press reports that the DD-21 is endangered and putting 
out what we believe are the very strong reasons for proceeding 
on schedule with this very important new weapons system. I know 
you have not had a chance to review this issue, but I did want 
to alert you to our concerns and to the very strong support 
that the DD-21 has in this committee and in this Congress and 
Senate. So I just want to put that on your radar screen as 
something that I hope you will get back to us on with a very 
positive response, very early in your tenure as an outstanding 
naval secretary.
    Mr. England. Definitely, I will definitely get back with 
you. I appreciate the effort, Senator. We will respond as 
quickly as possible.
    Senator Collins. Let me switch to another issue, Mr. 
England. Currently, our P-3 aircraft is an integral part of our 
current war plans' patrol and reconnaissance programs, but the 
P-3 is getting old. The platform is roughly 25-years-old and 
while the aircraft avionics upgrades have kept the plane 
relevant and viable in today's threat environment, many believe 
the air frame itself is reaching the end of its useful service 
life. Now, I am aware that there is an ongoing service life 
assessment program that is studying air frame fatigue issues, 
and that currently there is an ongoing analysis of alternatives 
underway to look at a multi-mission aircraft (MMA) as a follow-
on to the P-3 program. The CINCs rely on the P-3 to perform 
their roles and missions every day. I'd like to know what your 
thoughts are on the MMA program as a follow-on contender for 
the Navy patrol and reconnaissance missions.
    Mr. England. Senator, that is definitely an issue I have to 
look into, if confirmed, and get back with you. I will get back 
with you and confirm it.
    Senator Collins. Thank you. Mr. White, all of the services 
are currently under review to transform and move the military 
force into the 21st century. I understand the transformation 
efforts, particularly the Army transformation, are already 
under way. But there are obviously still opportunities and 
challenges ahead. The Army, in particular, has been criticized 
that its current units and systems are not nimble enough to 
respond to today's threats. In your judgment, will the current 
Army transformation plans yield the kinds of military forces 
and changes that we need to remain capable in the 21st century?
    Mr. White. Senator, from my brief review of the 
transformation plan as it is currently laid out, that is, the 
central focus of the plan is to produce at least equivalent 
survivability and revalidate with considerably less strategic 
weight so that we have a far more agile force. As we shift 
strategic emphasis from the European theater where it has been 
during the Cold War to the Pacific theater and the distances 
stretch and the geography changes, that it is strategic 
mobility that will be an essential challenge on the Army to 
outline a transformation program so that the Army can arrive at 
a first unit equipped in a reasonable time frame at an 
affordable price. If confirmed, I'll make that a central effort 
to be personally involved in.
    Senator Collins. Thank you. I know that my time has expired 
and the chairman has returned so I will turn over the gavel. I 
do want to say, Dr. Chu, that I do have a question for you that 
I am going to submit for the record. It expresses my concern 
about reports that 50 percent of DOD's civilian acquisition 
work force is going to be eligible to retire in 2005, and that 
really concerns me as far as brain drain and loss of expertise 
to the Department. So for the record, I am submitting a 
question to you that I would appreciate your answering.
    Chairman Warner. That is a very important subject, and each 
of our nominees should be fully aware of that fact.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Warner. Senator Smith.

                 STATEMENT OF SENATOR BOB SMITH

    Senator Smith. Thank you, Mr. Chairman. I must also 
apologize to the witnesses. A number of us have a simultaneous 
hearing going on in another committee with Secretary Mineta and 
we have also had a vote. Welcome to the Senate. Get used to it.
    Dr. Chu, there was a report, I am not sure of the date, it 
may have been yesterday in the Washington Times about four 
recently-authorized or expanded peacekeeping missions in Africa 
that will account for a huge increase in peacekeeping missions. 
Officials estimate the final cost of peacekeeping for the 12-
month period ending June 30 could rise as high as $22.6 
billion, compared to the $1.7 billion a year earlier. There was 
great controversy in the last administration about these 
peacekeeping missions, specifically a lack of budgeting which 
ultimately consumed readiness. Are you prepared to deal with 
this shortcoming in a straightforward manner so that the 
military readiness programs will not suffer?
    Dr. Chu. Yes, Senator. If I am confirmed to this position, 
I would look forward to exactly that.
    Senator Smith. How would you do that or recommend doing 
that? Would you do so via a supplemental budget for 
peacekeeping or budget for it in the defense budget or transfer 
the role of peacekeeping missions to the State Department?
    Dr. Chu. Senator, as your question suggests, President Bush 
and the current Secretary of Defense have committed themselves 
to trying to reduce these burdens, not increase them. That is 
obviously the first step. To the extent that the missions are 
foreseen, I think it is preferable to build them in the budget. 
I recognize the Department has tried from time to time to put 
forward the notion of a contingency fund against unforeseen 
circumstances of this kind. It has not always gotten a warm 
reception to that notion, and I think if a contingency line is 
not feasible, then I think the Department needs more promptly 
to ask for money in order to deal with it.
    Senator Smith. Gentlemen, there is debate about 
``peacekeeping'' missions--whether or not they are a legitimate 
role for the military. I think this will be a continuing 
dialogue as we move forward in the budget process. 
Unfortunately, I didn't have the opportunity to sit down and 
speak with each of you. The wait accompanying your nominations 
has precluded time to talk privately prior to this hearing. 
With that in mind, it is not my intent to surprise anyone, but 
just get it on your radar screen.
    Let me start with you, Mr. White. I have had a long-
standing interest in the Kinetic Energy Anti-Satellite (KE-
ASAT) program. KE-ASAT is a program that we have had under the 
Army for a number of years. Not to brag or take the blame, but 
I pretty much kept the program alive single-handedly. For the 
last 10 years it has been line-item vetoed and reprogrammed. I 
am concerned because there is another $40 or $50 million needed 
to get three kill vehicles tested. Unfortunately, there are 
still problems with that program and I want to bring it to your 
attention. General Shinseki has been very cooperative with me 
but there are still people in the program who don't believe in 
the program and people who do believe in the program who can't 
get into the program. That is not good for management of this 
program. I am concerned because I have thought about it and 
fought for it for so long that I am about ready to recommend a 
drastic change. I am ready to say if the Air Force is going to 
be the lead agency on space and that is the direction of 
reforms, then maybe it is time to move KE-ASAT out of the Army 
and put it in the Air Force where someone will believe in the 
program. I want you to understand my concern and frustration. 
It is the only program that I know of that can incapacitate a 
satellite. I know I will be proven right when these kill 
vehicles are tested. I feel so strongly about it and the way 
that it has been going that if the recommendations seem to fit 
and the Army is not going to be supportive of getting this 
program back on line, then I would suggest looking at the Air 
Force. I apologize for doing this publicly, but I feel so 
strongly about this issue.
    Mr. White. Senator, if confirmed, if you would give me a 
chance to examine the program before you took precipitous 
action, I would appreciate that.
    Senator Smith. I will do that. Again, I think what the 
Secretary was talking about in his press conference, and I 
don't want to put words in his mouth, but the idea was that 
somehow we need to try to collate things in terms of our space 
program. Their oversight is spread all over the Defense 
Department, as responsibility for the programs is spread all 
over different committees in Congress, but it is an example of 
a program that I think has been delayed because of actions 
prior to your tenure, obviously.
    Mr. England, let me ask you one question. Military-to-
military exchanges are a big controversy now. The Secretary 
addressed this issue the other day, briefly saying he was going 
to look at exchanges on a case-by-case basis. The information 
that I have had on these exchanges over the past several years 
has been that the military-to-military exchanges seem to 
benefit the Chinese more than they benefit us. They get to see 
more than we did. I would ask, when you are confirmed, to take 
a good, hard look at these military-to-military exchanges to 
see whether or not they are necessary to provide the Chinese 
with that kind of access. Given the latest things that have 
happened on Hainan Island, I would hope that you would look at 
that policy and whether or not they deserve access to our 
military installations when they are holding one of our 
aircraft hostage, if you will, in their country.
    Mr. England. Senator, I will get involved in this subject. 
Yes, sir.
    Senator Smith. I think it is one way to get their attention 
proving we don't tolerate this sort of thing. Could I ask one 
more question, Mr. Chairman?
    Chairman Warner. Absolutely.
    Senator Smith. I know my time has expired, and I apologize 
for that. Mr. England, I spoke to your predecessor, Secretary 
Danzig, briefly before he left office on the LCDR Michael 
Speicher case--the missing Navy pilot, first pilot shot down at 
the end of the Persian Gulf War. We can't go into a lot of 
detail here in an open session, but I just would ask you to 
receive an intelligence briefing on this and make sure that you 
are briefed thoroughly. There are some details that are quite 
astonishing. Secretary Danzig was so concerned about it that he 
recommended, and President Clinton approved, a change in the 
status of Commander Speicher from KIA to MIA. An unprecedented 
action, based on intelligence that had been revisited. I really 
believe that it is something you need to be briefed on. When 
you look at the number of issues you are going to have on your 
plate as you step in there, this could get lost. But, I believe 
it is a very important issue, and I urge you to look at it very 
carefully.
    Mr. England. I will make sure it does not get lost, sir.
    Senator Smith. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Mr. Smith. I appreciate your 
coming down from your other hearing. We have been here for 2 
consecutive hours. I think it might be advisable if we all 
stood for 2 or 3 minutes and as soon as I see you back in your 
seats, we will resume the hearing, which I hope will be 2 or 3 
minutes. Thank you.
    [The committee stood in recess.]
    Chairman Warner. The committee will come to order. I'll 
start with Mr. Rascon. I feel very strongly that not only has 
the President chosen wisely in your nomination, and indeed I 
think you had a chance to meet with Colonel Les Brownlee, Staff 
Director of the Armed Services Committee, and who was in that 
same engagement and wounded 3 days before you. He is a tower of 
strength on this committee. He has been here for many years. I 
hope he stays many more. But any way, the Selective Service 
System is essential. We always have to be reminded that the 
draft in World War II was approved by one vote from one single 
member, one vote that enabled that draft to be put in place 
just on the eve of Pearl Harbor. Anyway, the oceans have given 
us a certain amount of protection and time with which to 
prepare for engagements. We had it in World War II fortunately, 
but now with modern communication, modern transportation, 
spread of terrorism, we may not have the luxury of that time, 
so should a major crisis befall our Nation, we would have to 
turn immediately to the Selective Service System to provide men 
and women to come forward to serve in uniform. So, you have a 
very important function.
    Mr. Rascon. Yes, sir.
    Chairman Warner. This committee takes seriously its 
oversight of your organization and we know that you will have 
access to me and members of our committee and our staff 
whenever you deem it necessary.
    Mr. Rascon. Thank you very much.
    Chairman Warner. Now, you served as Inspector General of 
that system. Do you have some recommendations in your mind now 
that you are likely to bring about in the system, and also, 
would that require legislation?
    Mr. Rascon. If confirmed, the best thing about becoming a 
director will be the fact that I have been there before. I 
served there for 5 years and I ended up making observations. It 
is an agency that is well-equipped to do what it has to do, but 
there is always room for improvement. I think the most critical 
thing we have right now is with young men who have to come back 
and register. We end up with an 88 percentile of individuals 
registered for the Selective Service. We would hope that we 
would have it up to at least 90 percent. We find that those 
individuals who do not register do it with good cause and 
sometimes we end up with young individuals that are not aware 
of the fact that that is mandatory for them to do, and once 
they find out hey, let's do it, and it is really simple. The 
sad thing about it is that most of the time, these young men 
are not aware of the fact that they have an obligation to 
register. I think it is going to be important for us to come 
back and look at where the weak points are or we have to come 
back and focus, what state, what county, and make sure that we 
get the word out to these young men that they have a mandate to 
register for the Selective Service. I think by doing that, we 
should be able to come back and facilitate the need to come 
back and have at least a 90 percentile of individuals 
registering for the Selective Service once again, sir.
    Chairman Warner. As these service secretaries will be able 
to advise you hopefully after they are confirmed in their jobs, 
their challenge to meet the special skills requirements of the 
respective services is one of the biggest problems they have. 
We have enjoyed, certainly up until 6 months ago, an 
extraordinary growth in high-tech industry. Hopefully, that 
will return because it is on the cutting edge of America. But 
we are short frequently because of the growth of the civilian 
sector of high-tech in our military services for individuals 
who were trained in high-tech. They are given a number of 
offers when they have to make that critical decision. Do they 
go on for another 4 years or do they go out with their families 
and believe me, let me tell you, the decision to stay in the 
military is made around the dinner table at night. When I was 
in uniform sometimes a sergeant made the decision, but that is 
gone long ago. You may have to have congressional mandates for 
special skills. It is interesting, I love military history. My 
father served in World War I as a doctor in the trenches, 
wounded and highly decorated. I am just so highly proud of his 
service to the United States. But he was in the United States 
Army Reserve. The United States Army Reserve was created 
shortly after the turn of the century for one purpose, and that 
was to have a cadre of doctors to meet the requirements of this 
country we faced with a war. Indeed, it did happen in 1917. 
That is our situation in that war. So you have to be prepared. 
Have you given some thought to that? That is not going to be an 
easy one.
    Mr. Rascon. I have, sir, personally, because I have worked 
at the Selective Service and have been exposed to the 
intelligence community where I was an Army officer, there is a 
viable threat sometimes that we might not be aware of. I think 
that is one of the things that is hitting us right now in the 
head is the fact that if something happens, we have to be ready 
for anything and any emergencies. We end up with individuals 
who might be drafted, but again they end up with one common 
skill. We have to be able to come back and mandate through 
Congress to have a specialty, such as doctors and nurses, ready 
to come and be on board in case of a national emergency. If it 
is mandated, that is something that we will be able to come 
back and have ready to go, but to me, I think it is very 
important.
    Chairman Warner. You will, subject to confirmation, shortly 
make public what you are going to do along those lines, because 
I think advanced knowledge to the young men and women that if 
there is a serious problem, because of their skills, they could 
be among the first to be drafted. Am I not correct?
    Mr. Rascon. That's correct, sir. That is why it is 
important that we talk to each other as when I was in the 
infantry school: cooperate and graduate. I think that is very 
important.
    Chairman Warner. That still works.
    Mr. Rascon. Yes, sir.
    Chairman Warner. Now Dr. Chu, in your written responses to 
the committee's questions, do you agree the Selective Service 
Board should review substantiated relevant information of an 
adverse nature which could affect the judgment of those having 
to make the decision on those very important boards and be a 
part of the deliberative process.
    Dr. Chu. Yes, sir.
    Mr. White. Yes, sir.
    Mr. England. Yes, sir.
    Dr. Roche. Yes, sir.
    Mr. Rascon. Yes, sir.
    Chairman Warner. The service secretary plays a very key 
role in the selection boards and there is nothing really--I 
wouldn't say nothing, but it is vital to the career of the 
professional military that those boards be viewed and in actual 
practice are conducted in a manner to give the maximum degree 
of objectivity and fairness. Because they, together with their 
families, that made commitments of periods of time of service, 
accepted the hardships associated with that service, indeed the 
risk associated with it, the separation from family, and there 
is nothing more exciting that comes along than a promotion this 
side of the ocean, so take that responsibility as one of your 
greatest and most important and bear in mind the need to have 
that fairness, objectivity, and that they have comfort in that.
    Success in recruiting requires our most creative and bold 
thinking. What ideas do each of you have towards improving our 
recruiting? Dr. Chu.
    Dr. Chu. Thank you, Mr. Chairman. My own take on it is that 
we in the department need to be in tune with what is appealing 
to the younger generation, which may not always be the same 
things that appeal to the older. Maintaining a close finger on 
that pulse is essential to having a successful campaign.
    Chairman Warner. Mr. White.
    Mr. White. Senator, the Army has launched a new campaign, 
the ``An Army of One'' campaign. I look forward, if confirmed, 
to getting into the details of that.
    Chairman Warner. I wouldn't accept it at this moment. I 
don't know where you are going with this testimony. But the 
other one worked pretty well. So I want you to do some top-to-
bottom analysis in your department, if confirmed.
    Mr. White. Senator, I intend to. I was there when ``Be All 
You Can Be'' had tremendous success. The ``An Army of One'' has 
now kicked off, as you have seen. The message is what you call 
nontraditional. It leads from an older person's perspective.
    Chairman Warner. I wouldn't take that subject right now for 
yes, sir, brought up in my absence, we are ruling out any 
discussion on that.
    Mr. White. I will review it, Senator, in great detail 
because it is so important to the service.
    Chairman Warner. Good. I thank you.
    Mr. England. Senator, it is not just recruiting in the Navy 
and Marines. What we have is quality of service, which is 
quality of life and quality of workplace. It is recognizing the 
individual, the family, the optempo, all those things go 
together in making an enlisted career, officer career, or even 
a civilian career with the Navy or Marine Corps. It is going to 
be one of my very top goals, as I stated in a letter to you, 
sir. I think this is very important. The pilots are leaving at 
certain times and it is not just due to the airlines. I am not 
sure exactly what it is but it is happening in enlisted ranks 
as well, and it is of concern to me. I know it is of concern to 
the Chief of Naval Operations as well.
    Chairman Warner. Thank you very much. If you don't succeed, 
take a look at the man at the end of the table. You don't want 
to go to that unless it is absolutely essential.
    Dr. Roche. Yes, sir.
    Chairman Warner. You see that.
    Dr. Roche. Yes, sir. I have been thinking about your point 
about doctors.
    Chairman Warner. Yes, sir. We understand each other. Last 
week, Mr. England, this committee had a very good and thorough 
hearing on the subject of the V-22 program that was established 
by Secretary Cohen. That was a panel that came before this 
committee after the second fatal tragic mishap of a downed 
aircraft in an 8-month time span. The panel recommended the 
program be restructured but that it proceed. I can tell you at 
this point in time, I think we have to try and move in that 
way. Now further, what has to be done with Congress and indeed 
the Secretary of Defense and his staff. But at this time, 
speaking only for myself, I think it is essential that that 
program go forward.
    That airplane is not only essential for the Marine Corps 
and for Special Operations Forces, but in my judgment, it is 
especially for the country in two aspects. I was a member of 
the committee that conducted the investigation on the efforts 
of our Nation to rescue the embassy hostages in Iran. That 
operation was carefully thought through and planned in many 
ways, but the nail of the shoe of the horse was lost, but the 
shoe of the horse became lame, and you know that old joke, 
don't you. Small technical things occurred, some unforeseen 
weather conditions occurred, but those old helicopters were all 
we had to go in there, and this aircraft can be used first as a 
deterrent, and then if necessary, as an action by our military 
and our enlisted rescue people who are deep inside hostile 
boundaries, that get in and get out, and again, in this 
troubled world which we lead and rising terrorism, it is an 
asset for the United States.
    Second, there is a long history in our country of the 
United States military having forged their research and 
development on new types of aircraft that after they have 
become operational, those aircraft have been picked up and 
adapted by private civil areas, private sector, and developed 
into some of our major transport today, and other types of 
aircraft. If we can prove this technology to be safe and it can 
be utilized eventually by the civilian community, not only in 
this country, but there is no other technology quite like it in 
the world, then we have done not only a great service to our 
military and to our Nation's ability to perform rescue 
operations and other types of military operations, but we have 
enhanced the abilities of our civilian aviation perhaps to get 
a stronger position in the airplane market of a new type of 
dynamic aircraft, so this precision has many ramifications. 
Work has to be done.
    I think it best at this point in time, not to press you. I 
just wondered if you might have views that coincide with mine. 
If not, you can wait until you are confirmed and then you will 
be back.
    Mr. England. Senator, just one comment, sir. My only 
background and experience, of course, is in military aviation, 
so here is an area where I believe I can bring my own expertise 
and management experience to bear and I will do that very 
quickly. When confirmed, I will definitely get involved in the 
program because I believe I can personally help the program and 
will do so and look forward to it, sir.
    Chairman Warner. Good. I thank you. Dr. Chu, again, in a 
wide range of subjects that I covered and two other Members of 
Congress who were with me in meeting with the Secretary this 
morning, he is gravely concerned, as he should be, about the 
Defense Health Program. It is underfunded in the current year 
by approximately $1.4 billion. We had a lengthy discussion 
about the 2001 supplemental budget and the Secretary is 
committed to that. The President is now committed to it. You 
have to work with the OMB to move that forward expeditiously. 
But a part of that has to be adjusting the existing 
deficiencies in the military health system. If we don't, 
military health care services could be curtailed as early as 
late this summer. I just want to receive your acknowledgment 
that you are aware of that and that you will put your highest 
priority on addressing that issue very quickly.
    Dr. Chu. Absolutely, Mr. Chairman.
    Chairman Warner. I thank you. Dr. Chu, in your advance 
policy questions you expressed your knowledge of and support 
for the Defense Health Program, but we have to also look at the 
important legislation that this committee put through last year 
with regard to the retirees, and in no sense should that 
legislation not be fully and timely implemented. Do I have your 
assurance, Dr. Chu?
    Dr. Chu. Absolutely, sir.
    Mr. White. Yes, sir.
    Mr. England. Yes, sir.
    Dr. Roche. You have my support, sir.
    Chairman Warner. I know you have an interest in two 
directions. We have to have a little levity in the system 
somewhere.
    Mr. England, try to listen to me. This is a tough subject 
but particularly it hits your budget planning and that is in 
shipbuilding, we have a concept titled advanced appropriations. 
We have had throughout my career in your department and here in 
the Senate all kinds of things to apply to the effort to try 
and not have a full funding impact on the budget. For example, 
our carriers and our individuals. When you lay the carrier and 
suddenly your budget has to have that item and it is several 
billion dollars when we know full well that from keel to launch 
is a number of years. So Congress is working with the executive 
branch to see how we can alleviate some of these problems when 
it comes to budgeting, but not in any way getting around the 
fundamental reasons for the initial adoption and the full 
funding concept. So in a little bit of a garbled question, I am 
telling you that you have to work for this committee and the 
Appropriations Committee on innovative ideas as to how to fund 
these very significant programs and do it in a manner that 
gives them certainty the programs will be carried forward and 
that your respective departments, I say to each of you, fully 
recognize the obligation to carry those programs. Is that 
understood among you?
    Mr. England. Senator, if confirmed, I am generally 
committed to working with you.
    Chairman Warner. Dr. Chu is taking some notes because he 
will be working on that pretty closely. I think we have now 
covered those questions that I feel are important, for this 
committee, and eventually, the full Senate, to fully and 
carefully review these very important nominations. This 
extraordinary group of individuals that are before us today and 
their past accomplishments and their potential to serve their 
country today in these very important positions in these 
critical times and this world is regrettably becoming more and 
more a dangerous place. I wish you well. I sort of envy you. I 
have been asked many times of a 36-year career in public office 
what is the best job, and Mr. England, it is yours.
    Mr. England. I have some big footsteps to follow.
    Chairman Warner. During the most intense part of the 
Vietnam War, and I carry it with me to this day the memory of 
those periods, the happiness and the not so happiness. Good 
luck to you and your families.
    Mr. England. I am looking forward to it, thank you, sir.
    Chairman Warner. The committee stands adjourned.
    [Whereupon, at 12:37 p.m., the hearing was adjourned.]

    [Prepared questions submitted to Dr. David S.C. Chu by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                       May 4, 2001.
The Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                    David S.C. Chu.
cc: The Hon. Carl Levin
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. Significant progress has been made, and I believe the 
Department has largely embraced the spirit of the act.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Reaffirmation and clarification of civilian control, and 
strengthening the role of the Commanders in Chief of the Unified 
Commands.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
                                 duties
    Question. Section 136 of Title 10, United States Code, provides 
that the Under Secretary of Defense for Personnel and Readiness, 
subject to the authority, direction, and control of the Secretary of 
Defense, shall perform such duties and exercise such powers as the 
Secretary of Defense may prescribe in the areas of military readiness, 
total force management, military and civilian personnel requirements, 
military and civilian personnel training, military and civilian family 
matters, exchange, commissary and nonappropriated fund activities, 
personnel requirements for weapons support, National Guard and Reserve 
components, and health affairs. As Under Secretary of Defense for 
Personnel and Readiness, you would be a top leader and manager within 
the Department of Defense.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. I would expect the Secretary of Defense to look to 
Personnel and Readiness for stewardship of the human resources of the 
Department, and to serve as a principal advisor on and advocate for 
readiness issues.
    Question. In carrying out these duties, what would be your 
relationship with the Assistant Secretary of Defense for Force 
Management Policy, the Assistant Secretary of Defense for Health 
Affairs, and the Assistant Secretary of Defense for Reserve Affairs?
    Answer. If confirmed, I would hope to work with these officers as a 
team, to carry out the responsibilities for which the Secretary might 
hold us responsible, each providing expertise and leadership in his or 
her area of responsibility.
    Question. What would be your relationship with the Assistant 
Secretaries for Manpower and Reserve Affairs in the Army and Navy and 
the Assistant Secretary of the Air Force for Manpower, Reserve Affairs, 
Installations, and Environment?
    Answer. If confirmed, I would hope that I could look to these 
officers as my service partners in carrying out the human resource 
obligations of the Department at large, most especially ensuring that 
DOD attracts, motivates, and retains the quality people it needs.
                       officer management issues
    Question. As the Under Secretary of Defense for Personnel and 
Readiness, you would have significant responsibilities with regard to 
officer management policies, the promotion system, and recommending 
officers for nomination to positions of authority and responsibility.
    Do you believe the current Department of Defense procedures and 
practices for reviewing the records of officers pending nomination by 
the President are sufficient to ensure the Secretary of Defense and the 
President can make informed decisions?
    Answer. Yes. The Department of Defense views officer appointment 
actions as matters of the utmost importance. As a result, the 
procedures and practices regarding the review of officer nomination 
packages are designed to ensure that the Department thoroughly vets all 
officer records prior to forwarding their names for consideration by 
the President.
    Question. Are these procedures and practices fair and just to the 
officers involved?
    Answer. Yes. The Department's procedures and practices are designed 
to provide safeguards against unauthorized influence, ensure 
consistency of board practices, and provide for the active involvement 
of civilian officials in the process. There are numerous avenues 
available for redress if any officer feels that he or she has been 
treated unfairly by the promotion or nomination process.
                            senior officers
    Question. What is your opinion of the military's policy of rotating 
some of its three- and four-star general and flag officers out of joint 
duty assignments prior to the completion of 2 years, the general rule 
established in section 664 (a) of Title 10, United States Code?
    Answer. As I understand it, the Department of Defense does not have 
a policy that forces rotation of three- and four-star general and flag 
officers prior to completion of 2 years in a joint assignment. I want 
to assure you that I am fully committed to supporting the fundamental 
tenets of the Goldwater-Nichols Act and to ensuring that our military 
career management policies and practices meet the requirements of law. 
If confirmed, I would be pleased to examine whether actual DOD 
practices diverge from either what Congress mandated or DOD's own 
policies.
    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest moral and ethical 
values. We are frequently asked to confirm the promotion of officers 
who have substantiated allegations of misconduct that have not been 
considered by the boards that selected these officers for promotion. At 
the same time, the services inform us that they have many highly-
qualified officers for each available general and flag officer billet.
    What steps will you take to ensure that only the most highly-
qualified officers are nominated for promotion to general and flag 
officer rank?
    Answer. I believe that DOD's processes should ensure most careful 
review of the nomination packages of all officers recommended for 
appointment to general and flag grades at the highest levels of the 
military and civilian leadership of the department. Nomination packages 
that include adverse or alleged adverse information should be intensely 
scrutinized to ensure the officer is qualified to assume the 
responsibilities of the highest grade and to perform the duties of the 
position he or she will fill.
    At the same time, I believe we must simultaneously guard against 
the significant downside of being a ``zero mistakes organization.'' 
Moreover, many of these men and women have already filled positions of 
significant responsibility in which they have been called upon to make 
unpopular decisions. We owe them protection from the effects of 
frivolous accusations. If confirmed, I will endeavor to ensure that the 
committee is apprised of adverse information, advise the committee when 
alleged adverse information becomes known, and ensure that processes 
enable our best qualified officers to be nominated to general and flag 
officer grades.
                       readiness responsibilities
    Question. Section 136 of Title 10, United States Code, gives the 
Under Secretary of Defense for Personnel and Readiness certain 
responsibilities for military readiness. However, some important issues 
that affect military readiness, such as logistics and materiel 
readiness, have been placed under the jurisdiction of the Under 
Secretary for Acquisition, Technology, and Logistics. Furthermore, the 
secretaries of the military services have the Title 10 responsibility 
for most readiness issues including training, supplying, and 
maintaining the military forces.
    If confirmed, where would the readiness responsibilities of these 
other officials end, and where would your readiness responsibilities 
begin?
    Answer. While Title 10, United States Code, is very clear regarding 
the responsibilities of the service secretaries for providing ready 
forces to our unified commanders in chief, it is equally as clear in 
defining the role of the Under Secretary for Personnel and Readiness. 
If I am confirmed as the principal advisor to the Secretary for 
readiness issues, it would be my job to maintain a comprehensive 
understanding of all of the components that define the readiness of the 
Department of Defense to execute any assigned mission, from stabilizing 
presence to high intensity conflict. I would use the products of our 
readiness assessment and reporting processes and my oversight 
responsibility over readiness issues in the budget development and 
execution processes to ensure our forces remain ready.
    Question. What specific readiness issues would you and your 
subordinates be assigned?
    Answer. If confirmed as the Under Secretary for Personnel and 
Readiness, I would be the principal advisor to the Secretary regarding 
the readiness of the Department of Defense and I would ensure that our 
senior civilian and military leaders not only remain apprised of the 
readiness issues confronting the Department, but also ensure that 
critical readiness and capabilities shortfalls continue to be addressed 
by the Department's budgeting and execution processes.
    Question. Would you recommend any changes to the current 
organization to more effectively align some of these responsibilities?
    Answer. While making such recommendations at this time would be 
premature, if confirmed, I would certainly consider recommending 
prudent refinements to the Department's readiness oversight and 
management processes as their necessity becomes clear.
                 cinc identified readiness deficiencies
    Question. Over the last several years, the Quarterly Readiness 
Reports that your office prepares for Congress have outlined a number 
of CINC-identified readiness-related deficiencies. Many of these are 
listed as Category I deficiencies which entail significant warfighting 
risk to execution of the National Military Strategy. Although these 
deficiencies have been reported for the past several years, they have 
not, as yet, been effectively addressed. This has raised concerns that 
the requirements of the warfighting CINCs are not being incorporated 
into the military services' budgets and the Department's acquisition 
process.
    If confirmed, what actions would you take to ensure that the 
administration, and the military services in particular, provide the 
necessary resources to address CINC-identified readiness deficiencies?
    Answer. Each Category I deficiency should be addressed in the 
building and review of the service programs, and in their execution 
plans. As I understand it, the Department is actively engaged in 
addressing both the long-term ``capability shortfalls'' as well as 
traditional service readiness issues.
    If confirmed as the Under Secretary of Defense for Personnel and 
Readiness, I would ensure via the Senior Readiness Oversight Council 
that our senior civilian and military leaders not only remain apprised 
of the readiness issues confronting the Department, but also that 
critical readiness and capabilities shortfalls continue to be addressed 
by the Department's budgeting process. The Joint Monthly Readiness 
Review gives a continuing vehicle for assessing deficiencies. If 
confirmed, I will ensure that P&R remains firmly embedded in this 
deficiency review process.
                 readiness of army units in the balkans
    Question. Twice in the past 2 years newspaper articles have alleged 
that Army divisions were ``unprepared'' or ``unfit''. All these cases 
involved divisions which had a brigade in the Balkans and the rest of 
the division back at their home station. In each case the troops in the 
Balkans were doing an excellent job at the tasks they were actually 
assigned to at the time, but the division as a whole would not have 
been able to get to a major theater war somewhere else as quickly as 
they otherwise would have.
    When General Clark, the Commander-in-Chief who was using the forces 
in the Balkans, was asked about this issue at a hearing with this 
committee last year he said the two divisions reported lower readiness 
``because of the peculiarity of the Army reporting requirement . . . 
They were not ready to do something; they were already doing it.'' He 
went on to say that ``this anomaly will be corrected.'' Since that time 
the Army has modified its deployment plans so that units engaged in 
real world missions in the Balkans will not be counted on so early in 
our war plans.
    In your view, do these situations represent a readiness problem, a 
flaw in the readiness reporting system, or a communication problem?
    Answer. In my judgment, the readiness reporting system should be 
structured to capture the ability of our forces to execute major 
theater war responsibilities. That could lead to the seemingly 
anomalous situation of a unit performing well in a smaller contingency 
at the same time that its ability to carry out elements of major war 
responsibilities is eroding. It may be necessary for DOD to review how 
it might better structure the readiness reporting system to capture 
this reality.
    Question. Is it accurate to say a unit that is doing the job you 
told it to do and doing it well is not ready?
    Answer. It may be accurate to say that each unit has been fully and 
properly trained, manned, and equipped to conduct its deployed 
missions--and that it has in fact conducted them superbly. At the same 
time it may also be accurate to say that the training proficiency of a 
unit for combat missions (e.g., deep attack operations, assault of an 
objective with fire, and maneuver) may be degraded by an inability to 
actively train in these tasks over an extended time.
    Question. Should our readiness ratings reflect both a unit's 
capability to do the missions it is actually performing, in addition to 
its capability to perform the most demanding tasks it may be assigned 
under the National Military Strategy?
    Answer. This may be the solution. I was pleased to learn that the 
Department established a readiness indicator for small-scale 
contingencies last year. As I understand it, this new readiness-
reporting enhancement requires units to report on both their currently 
deployed mission as well as the missions that the unit was originally 
designed to undertake.
                            operating tempo
    Question. The services have been very concerned in recent years 
about the impact of the pace of operations, or ``OPTEMPO,'' on the 
quality of life of our people in uniform and specifically on their 
willingness to reenlist.
    What steps do you plan to take to address the services' optempo 
concerns?
    Answer. I believe it is widely agreed that the high-tempo level of 
our service members is potentially detrimental to their quality of life 
and affects their retention decisions.
    If confirmed, I would look forward to making this issue a priority 
concern, starting with the implementation of Congress' provision on the 
matter. I believe this will require improved, more timely reporting 
systems with which to track accurately the nature and extent of the 
problem. It may also require a better link to DOD's survey efforts, in 
order to improve our understanding of how optempo affects retention and 
other personnel behaviors.
               improvements to readiness reporting system
    Question. Do you believe the current readiness reporting systems 
can or should be modified to reflect a unit's ability to perform 
effectively with the other forces it may need to work with under a 
unified commander (``joint readiness''), or to predict its readiness 
(``future readiness'') in addition to reflecting its current state of 
readiness?
    Answer. Although I believe DOD's current system is an effective 
tool, improvements need to be made, of which these are excellent 
examples.
    Question. What steps would you take to address concerns that our 
current readiness reporting system does not provide this information?
    Answer. As I understand it, the congressionally-mandated 
independent study is expected to offer significant recommendations for 
improvement. If confirmed, I would look forward to reviewing these 
recommendations with a critical eye for making meaningful changes that 
will allow the Department to have a readiness system that reports on 
the capability of the armed forces to carry out the full range of 
requirements as indicated by the National Security Strategy. Such a 
review should pay particular attention to recommendations on improving 
sustainability reports and reporting by Mission Essential Tasks.
                  anthrax vaccine immunization program
    Question. DOD considers the biological agent anthrax to be the 
greatest biological weapon threat to our military force because it is 
highly lethal, easy to produce in large quantities, and remains viable 
over long periods of time. The anthrax vaccination program has been 
curtailed because of limited quantities of FDA-approved vaccine.
    If confirmed, and if additional FDA-approved vaccine becomes 
available, do you plan to reimplement and continue the Anthrax 
Vaccination Immunization Policy?
    Answer. It is my understanding that, because of constrained supply, 
the Department has presently slowed the program. It is also my 
understanding that current plans call for a return to a phased 
implementation approach to the program once an adequate supply is again 
available. I have also been advised that Secretary Rumsfeld will 
receive a full briefing on the program and will make a decision on its 
continuation and execution at that time. If confirmed as the Under 
Secretary of Defense for Personnel and Readiness, I would keep myself 
apprised of the program so that I could provide the Secretary with an 
honest and forthright appraisal of the program's effect on personnel 
and readiness issues.
    Question. How do you believe the Department should respond to 
service members who refuse to take the vaccine when required to do so?
    Answer. Military personnel are required to take many vaccines. Some 
are given to all military personnel, while others are for certain 
occupational groups or geographic assignments. For the affected 
category of personnel at risk, none of these vaccines is optional or 
voluntary under current policy.
    Service members who refuse to take the vaccine disobey a lawful 
order and are subject to administrative or disciplinary actions. In 
these instances, local military commanders apply the principles in the 
Uniform Code of Military Justice (UCMJ) and the guidance in the Manual 
for Courts-Martial and Service regulations that apply to other cases 
involving a refusal to obey a lawful order. This permits a local 
commander, with no influence from superior officers, to consider each 
case on its own merits. At the same time, I am sensitive to the 
widespread suspicion about this vaccine specifically, and about medical 
force protection generally. If confirmed, I would see it as an urgent 
task to regain the confidence of service members and their families 
that the administration of vaccines is in their own best interest.
                       homosexual conduct policy
    Question. The current Department of Defense Homosexual Conduct 
Policy went into effect in February 1994 after months of congressional 
hearings and debate resulting in the enactment of a federal statute. 
Although there have been some changes in how this policy has been 
implemented, the basic policy has not been changed.
    Do you believe that the current policy is effective?
    Answer. In general, yes.
    Question. If confirmed, do you plan to make any changes to the 
basic policy or its implementation? If so, what changes will you 
propose?
    Answer. Consistent with the Secretary's previous statement, and 
with what President Bush said during the campaign, I understand that 
there are no plans to recommend changes to either current law or 
policy.
    Question. A DOD working group of senior military and civilian 
representatives from each of the military services recently proposed an 
action plan to address the problem of harassment based on perceived 
sexual orientation and other issues raised by the Inspector General. 
The review resulted in a 13-point action plan to eliminate all forms of 
harassment. The Department announced that it would issue a Department-
wide directive on this subject.
    Do you support the 13-point action plan issued by the Secretary's 
working group?
    Answer. I have not yet had a chance to review the proposed plan but 
would look forward to doing so, if confirmed.
    Question. Will you ensure that the Department issues and enforces 
an appropriate directive to implement and enforce the action plan?
    Answer. Harassment in any form is inconsistent with military values 
and should be handled quickly and effectively by military leaders. If 
confirmed, I will review the working group's findings and recommend 
appropriate actions.
                           montgomery gi bill
    Question. Almost all new service members enroll in and contribute 
to the Montgomery GI Bill. Only about half use their benefits, and many 
do not use all of their entitlement. Many of these soldiers, sailors, 
airmen, and marines say they would like to stay in the service, but 
feel they have to leave so that they can provide for the education of 
their spouses and children. Some of these service members would stay in 
the service if they could transfer all or a part of their unused 
entitlement to GI Bill benefits to family members in return for a 
service commitment. Service secretaries could use this retention tool 
selectively, just as they use reenlistment bonuses.
    If confirmed, will you give serious consideration to how the 
Department of Defense could use the transfer of unused GI Bill benefits 
to family members as a retention tool and provide your thoughts on how 
we best do this?
    Answer. If confirmed, I will ensure that we fully explore MGIB 
transferability as a potential contributor to better retention and 
improved quality of life.
               department of defense educational activity
    Question. President Bush has acknowledged that ``soldiers enlist, 
but families reenlist.'' The Department of Defense Education Activity 
(DODEA) schools are a key element of the quality of life for our 
service members and their families.
    What role will the DODEA schools play in the administration's 
effort to improve quality of life for military families?
    Answer. Indeed, children's education and success in school are a 
top priority for military families and for President Bush. If 
confirmed, I would look forward to examining how DODEA schools 
contribute to military quality of life.
    Question. The current pay structure for DODEA teachers was 
established in 1959.
    Will you review this pay structure to determine whether it is still 
adequate and propose changes determined appropriate by your review?
    Answer. Yes. If confirmed, I would review the pay structure for 
DODEA teachers in both domestic and overseas schools and make 
appropriate recommendations to the Secretary of Defense.
                       gender integrated training
    Question. Basic training, which may be the single most important 
phase of an individual's life in the military, is structured and 
defined differently by each service. Men training for direct ground 
combat positions in the Army and Marine Corps train in all-male units. 
Men and women training to serve in positions that are open to women in 
the Army, Navy, and Air Force train in gender-integrated units. Men and 
women in the Marine Corps are segregated at boot camp, then integrated 
during subsequent training.
    Do you believe the current DOD policy of allowing each of the 
services to establish its own policy for gender integration in basic 
training is effective?
    Answer. Each service develops and executes a basic training program 
to meet its unique mission requirements. In my judgment, service 
policies with respect to gender integrated training should reflect 
those requirements.
    Question. If confirmed, will you propose changes to the DOD or 
service policies? If so, what changes will you propose?
    Answer. The services conduct basic training for one purpose: to 
produce physically fit, trained, and disciplined soldiers, sailors, 
airmen, and marines. Changes would be needed if the services cannot 
meet that goal.
                           concurrent receipt
    Question. Military retirees with disabilities incurred during their 
military service are eligible to receive military retired pay from the 
Department of Defense and veterans' disability compensation from the 
Department of Veterans' Affairs. However, current law requires that 
military retired pay be reduced by the amount of the veterans' 
benefits. Military retirement pay and disability compensation were 
earned and awarded for different purposes. Military retirees earned 
their retirement by dedicating 20 or more years of service to our 
Nation's defense. Disability compensation is awarded to compensate 
veterans for injuries incurred in the line of duty.
    If confirmed, would you support a change in the law to permit 
disabled military retirees to receive their full retired pay as well as 
their disability compensation?
    Answer. If confirmed I would look closely at that issue, if 
Congress has not already acted on it, and would look forward to working 
closely with the committee on this important topic.
         conversion of military positions to civilian positions
    Question. Whenever Defense organizations undergo staffing changes, 
a review is conducted to determine which positions are ``military 
essential'' and which positions can be converted to civilian positions. 
However, there is no systematic process to review positions in 
organizations not experiencing such a change to determine whether 
military positions should be converted to civilian positions. In 1997, 
GAO, using DOD and service guidance, determined that 14 percent of 
active duty officer positions were candidates for military to civilian 
conversion.
    If confirmed, will you initiate a review of military positions to 
determine whether they are truly ``military essential'' and identify 
those that can be converted to civilian positions?
    Answer. The Department of Defense has undergone a number of changes 
since the 1997 GAO review. My understanding is that the Department has 
conducted a Department-wide review of every military and civilian 
position with a goal of streamlining the workforce through competition. 
The Department is using that review as a tool to develop A-76 
competition plans and to ensure that both military and civilian 
essentiality guidelines are applied uniformly throughout the 
components. If confirmed, I would continue to implement Department 
policy that mandates a review of military/civilian essentiality.
                               retention
    Question. Both Congress and the Department of Defense are fully 
committed to supporting initiatives that improve our military members' 
quality of life to influence them to stay in the military. The 
initiatives include increased compensation and improved housing for 
families and single personnel. Although these initiatives may increase 
overall retention, they may not affect retaining those individuals with 
high demand technical skills. This retention challenge will increase as 
we train our personnel to support the digitization and automation of 
our armed forces.
    What additional initiatives, other than speciality pay, should the 
Department consider to increase retention of these highly trained 
personnel?
    Answer. While pay and compensation are critical, retaining a 
service member and his or her family also depends on high job 
satisfaction, quality of family life, and quality of service 
conditions. Controlling personnel tempo, or time away from home, should 
remain a top priority.
    Question. In your personal opinion, what is the greatest challenge 
that must be overcome in regard to retaining mid-grade noncommissioned 
officers and mid-grade officers?
    Answer. DOD recruits a high quality force, provides first class 
education and training with associated hands-on experience, and places 
the challenges of leadership and accountability on its people at a very 
young age. These are talented and seasoned people and civilian 
employers, who offer high salaries and a more predictable family life, 
know this and aggressively recruit them.
    I believe we can increase the likelihood of retaining these people 
in today's strong economy by enhancing job satisfaction--which includes 
the off-duty as well as the duty environment. High job satisfaction 
translates to compensation equity, concern for the welfare of families, 
increased confidence in skills and equipment, and sufficient resources 
to man and train a world class fighting force.
                           civilian personnel
    Question. The aging of the DOD workforce, combined with constrained 
hiring during the past several years, has created a significant skill 
imbalance within the Department.
    If additional funding to permit additional hiring is not available, 
what policies, in your view, must the Department implement to 
revitalize its workforce?
    Answer. I believe this is a serious issue facing the Department 
and, if confirmed, I intend to conduct a review of all aspects of 
civilian workforce management. This should include the need for some 
flexibility in hiring and pay systems.
                      reserve component deployment
    Question. There is substantial anecdotal evidence that members of 
the Reserve and Guard are tiring of extended deployments, and meeting 
increased resistance to such deployments from spouses and civilian 
employers. The Air Force has instituted a program to put some 
predictability into deployment cycles.
    In your opinion, is this a serious problem?
    Answer. I do not yet know enough to judge the seriousness of the 
problem, but if confirmed, I would welcome the opportunity to evaluate 
it.
    Question. What initiatives would you propose to address employers' 
concerns?
    Answer. If confirmed, I will meet with employers to better 
understand their concerns so that the Department can craft policies to 
address the concerns explicitly. I understand that the Federal 
Government is the largest single employer of guardsmen and reservists. 
Therefore, I would work with all Federal agencies to ensure that the 
Federal Government leads by example. The Deputy Secretary of Defense 
has taken the first step in this initiative by his recent approval of 
Defense implementation of an Office of Personnel Management policy 
encouraging all Federal agencies to pay the employee share of health 
premiums for Reserve component members serving in support of 
contingency operations.
    Question. Do you believe the Air Force program has succeeded in its 
intent?
    Answer. I understand the Air Force's Aerospace Expeditionary Force 
(AEF) program is potentially helpful, but it's too early to provide a 
definitive answer.
           senior executive service development and training
    Question. What are your personal views on the adequacy of training 
programs for members of the Senior Executive Service in the Department 
of Defense?
    What initiatives would you propose to enhance this training?
    Answer. Although I understand some training is provided, I believe 
DOD can substantially improve the training provided to its Senior 
Executives and those preparing themselves for the SES. If confirmed, I 
would look forward to reviewing existing training and see where 
improvements can be made.
          medical benefit as component of compensation package
    Question. The military medical benefit has varied over time 
depending on geographic location, beneficiary category, and available 
funding. This has caused great confusion and concern for Department of 
Defense military beneficiaries. A medical benefit is a significant 
component of a total compensation package. As Under Secretary for 
Personnel and Readiness, responsibility for this vast program would be 
under your purview.
    If confirmed, how do you envision approaching the totality of the 
compensation package and the specific medical benefit in that context?
    Answer. Providing comprehensive health care benefits is an 
important part of any compensation package, whether it be for a 
military service member, or a Federal civilian employee, and health 
care has always been a critical component of quality of life for active 
duty families. With passage of the Floyd D. Spence National Defense 
Authorization Act for Fiscal Year 2001, Congress extended the TRICARE 
benefit to our 65-and-over military beneficiaries. The Department's 
commitment is to provide or arrange for these benefits, demonstrating 
its long-term commitment to comprehensive health care benefits for all 
eligible beneficiaries. It is essential for the Department to honor 
this commitment if it is to compete successfully for the best talent in 
American society. Were I confirmed as Under Secretary for Personnel and 
Readiness, working with this committee, I would look forward to taking 
a results-based approach to both the medical benefit and the total 
compensation package.
                    defense health program shortfall
    Question. As you are well aware from your previous tenure, the 
Defense medical budget has and continues to experience significant 
annual shortfalls. The combination of what had been a vague benefit for 
retirees, a declining medical infrastructure, advances in technology, 
and a growing retiree population all contributed to substantial 
difficulty in budgeting adequately for this program.
    Now that Congress has clarified its intent with regard to older 
retirees' entitlement to health care, what steps do you plan to take to 
ensure appropriate funding levels for the Defense Health Program?
    Answer. If confirmed, I am committed to advocating for appropriate 
funding of the health care program. I believe this starts with an 
improved ability to forecast future costs and carries all the way 
through to monitoring the actual execution of the program.
 organization of the office of the assistant secretary of defense for 
                             health affairs
    Question. Since at least the 1940s, there has been ongoing 
discussion of appropriate oversight of the military health care system. 
From time to time, proposals are evaluated which would consolidate the 
capabilities of the military departments' medical activities. In fact, 
in response to DOD review of medical support, funding, and oversight, 
the Defense Health Program was created in the early 1990s and 
subsequently a Defense Field Activity, the TRICARE Management Activity, 
was created to oversee, from a joint perspective, operations of the 
military health care system. Congress has directed review of a joint 
military medical command and is awaiting a Department report on such a 
proposal.
    What are your views on an appropriate oversight structure for the 
military health care program?
    Answer. RAND reviewed this issue for the Department in support of 
its response to Congress and recommended that reorganization of the 
current TRICARE regional structure and empowerment of the lead agent 
should be the first course of action. I tend to agree with this 
approach. If confirmed, I would look forward to examining what further 
steps might be productive, especially as DOD gains experience with 
Tricare for Life.
                future of managed care support contracts
    Question. The TRICARE Management Activity manages the contracting 
process whereby the Department has contracted with five major health 
care suppliers to provide regional contract support to augment the 
capabilities of the military health care system. These are billion 
dollar contracts that have experienced significant growth due to a 
number of factors which include changing requirements from the 
Department of Defense and congressional direction. As these contracts 
come to their termination points, the Department is considering new 
approaches to acquisition of health care services.
    What are your views on the future of purchased health care and what 
approach do you believe holds the most promise?
    Answer. The Department is currently reviewing the options for 
developing the next generation of health care contracts. I understand 
that numerous studies have been undertaken and a number of outside 
consultants and experts have been used to identify various contract 
options. The health care industry has evolved significantly since the 
early 1990s when the current contract model was developed. If 
confirmed, I would look forward to helping develop a contract model 
that is responsive to local health care delivery requirements, 
recognizes the capability of empowered regional management, and takes 
advantage of current and emerging business practices for activities 
like claims processing. It may turn out DOD will need some additional 
statutory language to write effective contracts of this type, and, if 
confirmed, I would look forward to working with this committee on that 
issue should such prove to be the case.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense for Personnel and Readiness?
    Answer. Recruiting and retaining high quality men and women in the 
right skills to meet mission requirements and to ensure our Nation's 
military force is able to fulfill our national security requirements. 
Meeting the readiness challenges in transforming U.S. military forces 
to a 21st century model.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I would plan to focus on those factors with 
the greatest influence in producing needed results. I would hope to 
establish processes, in the best public administration tradition, that 
permit realizing the desired results as a routine, well-considered 
business practice, rather than as emergent, ``crash'' objectives. Among 
other elements, that may require stronger and more responsive 
information systems than now exist.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Personnel and Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. In a recent press account, General Shelton 
said force quality must remain a top priority. He believes military pay 
is still 10 percent behind private sector wages and argues for a hefty 
increase soon. How would you rate the need for a significant pay 
increase, when compared to other competing priorities?
    Dr. Chu. The Department is taking a hard look at the structure and 
levels of military pay in comparison with private sector pay for those 
with similar levels of education. Analysis conducted by the 9th 
Quadrennial Review of Military Compensation (QRMC) indicates that pay 
for mid-grade non-commissioned officers is clearly behind competing pay 
in the private sector, and targeted raises under consideration for 
January 2002 are appropriate to begin addressing this problem.

    2. Senator Thurmond. There are many individuals in the Department 
of Defense who believe that the quickest way to achieve savings is to 
convert civilian-filled government positions to contractor-operated 
functions. In my judgment, these savings are in most instances 
illusionary.
    What reporting system does the Department have to capture the data 
necessary to quantify these savings?
    Dr. Chu. The system that tracks competition initiatives is the 
Department of Defense Commercial Activities Management Information 
System (CAMIS). The system tracks costs for each performance period 
bid. The Department is currently developing enhancements to this 
system.

    3. Senator Thurmond. Based on your service in the Department of 
Defense during the 1980s as the Director of Program Analysis and 
Evaluation, what changes have you seen in the relationship between 
Congress and the Department of Defense in the last 10 years? How will 
these changes impact your relationship with this committee and 
Congress?
    Dr. Chu. I, of course, am just beginning to develop my 
relationships with Congress in my new role as the Under Secretary of 
Defense for Personnel and Readiness. However, my initial impression is 
that Congress remains as interested and involved in the details of the 
budget and the implementation of the policies within the Department of 
Defense as I remember, but the Department is less cohesive in its 
responses. I look forward to improving our responses, and working 
closely with this committee, and the other oversight committees, to 
recognize the nobility of service to the Nation, to develop a new 
``social compact'' with service members and their families, and to 
develop a human resources strategy that will provide objectives and 
guidelines for recruiting, training, motivating, and retaining the 
military and civilian workforce needed to meet the challenges of the 
21st century.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
    4. Senator Collins. The Acquisition 2005 Task Force Report, 
``Shaping the Civilian Acquisition Workforce of the Future,'' 
highlights that the Department is on the verge of a crisis of a 
retirement-driven brain drain. According to this report, more than 50 
percent of DOD's civilian acquisition workforce will be eligible to 
retire by 2005, requiring a surge in recruiting at all levels. What 
plans do you have to ensure that we are recruiting and retaining new 
talent to step up into these senior leadership positions, as people 
retire in the near and mid-terms?
    Dr. Chu. We share the Senator's concern and sense of urgency. We 
indeed project losses approaching 50 percent in some key acquisition 
occupations primarily due to retirement over the next 5 to 6 years. 
Overall, we project that 39 percent of the September 1999 civilian 
acquisition workforce will not be in DOD in 2005.
    The cornerstone of our efforts must be strategic workforce 
planning. Such planning will be a focus of the Quadrennial Defense 
Review and the process leading up to the submission of the President's 
Budget Request for Fiscal Year 2003.
    We will also be looking at the ability of the civilian personnel 
system to recruit and appoint the numbers and quality of personnel we 
need.
    At the same time, we will be exploring how best to use the 
authorities Congress has already given us, and what new authorities we 
might need. To assist us in the process, RAND developed a workforce 
projection model and a framework for Defense Components to create 
workforce shaping plans.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton
    5. Senator Dayton. Presently, DODEA serves approximately 100,000 
military students, and public schools serve approximately 500,000 
military students. What do you see as the new Educational Opportunities 
Directorate's (EOD) role in serving these 500,000 students and do you 
support the EOD and its role?
    Dr. Chu. The Educational Opportunities Directorate (EOD) was 
specifically formed to identify and address problems that military 
dependent students and their families experience when they relocate due 
to the reassignment of the military sponsor. Most military dependents, 
for instance, attend four or five different schools during their years 
of K-12 schooling. Through the new directorate, we expect to increase 
communication between public and DOD schools and among military 
families, military services, and community organizations. We will 
identify best practices, formulate model policies, and develop 
strategies to address issues. We will make State and district education 
leaders aware of the need to deal with issues that are not unique to 
military dependent students, but that affect many children in a society 
as mobile as ours has become.
    Though the EOD was established to deal with the transition issues 
of K-12 military dependent students, the Directorate has become a body 
for dealing with many other educational issues and programs. These 
include off-duty voluntary education for military personnel, Impact 
Aid, Troops-to-Teachers, special needs and medically-related services, 
and transition of military personnel to civilian occupations.

    6. Senator Dayton. Federal funding from the Department of Education 
to support public schools serving military students is called Impact 
Aid. In the past, Congress has authorized and appropriated DOD funds to 
assist school systems receiving Impact Aid funds. From what I have 
learned from the superintendents of these schools, DOD funding has been 
critical in assisting them with building construction and renovations, 
computer purchases, etc. Can you assure this committee and Congress 
that DOD will continue to support our initiative to assist public 
schools educating our military's children?
    Dr. Chu. The Department understands the issue of financially 
assisting public schools that enroll military dependent students. Of 
course, the Defense Department will expeditiously distribute any funds 
appropriated to it specifically for assisting public schools.

    7. Senator Dayton. I have been advised that when the Federal 
Government privatizes housing on Federal property, the payment to the 
contractor by the Federal Government appears on the leave earnings 
statement (LES) as a payment to the individual, despite the fact that 
payment is never reported on the individual's W-2 statement. School 
districts look at the LES for verification of eligibility for the 
Federal Free and Reduced Lunch program. School superintendents further 
advise me that, because of this, the children of a military family in 
privatized housing on Federal property would lose their Free and 
Reduced Lunch eligibility. Thus, this loss seems to me to be an 
unintended consequence of privatization. What do you see as the remedy 
to this?
    Dr. Chu. This does appear to be an unintended consequence of our 
housing privatization efforts and the Department is looking into this 
issue, but it may require a change of the law to correct it.

    8. Senator Dayton. Currently, we have several incentive pay options 
that can benefit the service member who is deployed unaccompanied 
overseas. These include hardship tour, hazardous duty, and combat zone 
pay, among others. I have spoken to commanders in the field as well as 
CINCs appearing before this committee. Many of them are concerned that 
our service members are not being compensated well enough, particularly 
for some hardship tours. What is your feeling about our commanders' 
concerns, and how would you recommend improving the overall 
compensation ``packages'' for our service members?
    Dr. Chu. The Department is examining whether the current incentive 
package provided to members is adequate to attract needed volunteers 
for unaccompanied assignments or even some accompanied assignments 
overseas. This includes a multi-dimensional effort, comprising of a 
review by the Secretary's comprehensive study of Quality-of-Life, and 
by a joint working group co-chaired by P&R and the Joint Staff, to 
develop incentives to motivate volunteers for difficult-to-staff 
overseas locations. As required in the Fiscal Year 2001 National 
Defense Authorization Act, a report on incentives for overseas 
assignments, as well as affordable recommendations to resolve the 
problem, will be provided to Congress this fall.

    9. Senator Dayton. The impact of the pace of operations, or 
``OPTEMPO,'' on the quality of life of our service members is a major 
concern. Do you know if the services have established a credible system 
in ``tracking and recording the number of days'' a service member is 
deployed, and has the system caused some unnecessary burden with the 
CINCs?
    Dr. Chu. In accordance with the Fiscal Year 2000 National Defense 
Authorization Act (Section 923), the services have developed systems to 
track and report deployed days information on service members. We 
conducted an independent verification and validation of the early 
implementation of these systems; our results revealed that the data 
collection was incomplete. We have relied extensively on our current 
data systems to capture and report data at a pace and a level of detail 
well beyond current systems' capabilities. We implemented the perstempo 
system within current staffing levels and budgets. Creating and 
supporting this system has proven to be labor-intensive and time-
consuming.
    With respect to the impact of the perstempo system on the CINCs, 
some report these additional tracking and reporting requirements are 
``burdensome'' to the extent they must be met with existing budgets and 
staffing levels. In addition, we know that a number of units may need 
to deploy some of their members in excess of the 400-day threshold at 
which the services must start paying their members $100 per day.
                                 ______
                                 
    [The nomination reference of Dr. David S.C. Chu follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. David S.C. Chu, of the District of Columbia, to be Under 
Secretary of Defense for Personnel and Readiness, vice Bernard Daniel 
Rostker.
                                 ______
                                 
    [The biographical sketch of Dr. David S.C. Chu, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. David S.C. Chu
    Dr. Chu is currently the Vice President responsible for RAND's Army 
Research Division and Director of the Arroyo Center. Previously, he was 
Director of RAND's Washington Office and Associate Chairman of RAND's 
Research Staff.
    Dr. Chu is a member of the Army Science Board. He served in the 
Department of Defense as Assistant Secretary and Director for Program 
Analysis and Evaluation (1981-1993). Earlier, Dr. Chu was the Assistant 
Director of the Congressional Budget Office for National Security and 
International Affairs (1978-1981).
    Dr. Chu was an economist with RAND from 1970 to 1978, and served in 
the U.S. Army from 1968-1970.
    Dr. Chu was educated at Yale University, receiving his BA in 
Economics and Mathematics, and his Ph.D. in Economics. He has been 
awarded the Department of Defense Medal for Distinguished Public 
Service with Silver Palm and the National Public Service Award of the 
National Academy of Public Administration, of which he is a Fellow, and 
on whose Board he serves as Chairman.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. David S.C. 
Chu in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David S.C. Chu.

    2. Position to which nominated:
    Under Secretary of Defense for Personnel and Readiness.

    3. Date of nomination:
    April 30, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 28, 1944; New York City, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Laura Tosi.

    7. Names and ages of children:
    Carolyn, 16; Jonathan, 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    AB Davis High School, 1958-61, Diploma; Yale University, 1961-64, 
BA Economics and Mathematics, 1964; Yale University, 1964-68, MA, 
Economics, 1965; Yale University, M. Phil, Economics, 1967; Yale 
University, Ph.D., Economics, 1972.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Vice President, Army Research Div., RAND and Director, Arroyo 
Center, June 1998-Present.
    Director, Washington Office, and Associate Chairman of the Research 
Staff, RAND, March 1996-June 1998.
    Director, Washington Research Department, RAND, January 1994-March 
1996.
    Senior Fellow, RAND, January 1993-January 1994.
    Assistant Secretary of Defense (Program Analysis and Evaluation) 
July 1988-January 1993, and Director, Program Analysis and Evaluation, 
Office of the Secretary of Defense, Department of Defense, May 1981-
July 1988.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Army Science Board.
    Member, Task Force on Defense Reform.
    Member, Defense Science Board Task on DOD Acquisition Policies and 
their Effect on the Health and Competitiveness of the U.S. Defense 
Industry.
    Member, Defense Science Board Task Force on Military Personnel 
Information Management.
    Member, Naval War College Advisory Board.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Vice President, Army Research Division, RAND.
    Chairman, Board of Directors, National Academy of Public 
Administration.
    Member, Board of Trustees, National Presbyterian School.
    Member, Advisory Council, Defense Systems Management College Alumni 
Association.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, American Economic Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush-Cheney Recount  $100.00.
    DC Republican Committee  $125.00.
    Bush for President  $150.00.
    Republican Senatorial Inner Circle  $150.00.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Phi Beta Kappa.
    Honorary Woodrow Wilson Fellow.
    National Science Foundation Fellow.
    Foreign Area Fellowship Program Fellow.
    Army Commendation Medal, Bronze Star.
    Elmer B. Staats Award, National Capital Area Chapter, American 
Society for Public Administration, 1986.
    Department of Defense Medal for Distinguished Public Service, 1987; 
Bronze Palm, 1988; Silver Palm, 1993.
    National Public Service Award, American Society of Public 
Administration, 1990.
    Vance R. Wanner Memorial Award of the Military Operations Research 
Society, 1993.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None (speeches delivered from outlines).

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Dr. David S.C. Chu.
    This 10th day of May, 2001.

    [The nomination of Dr. David S.C. Chu was reported to the 
Senate by Senator John Warner on May 21, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 26, 2001.]
                              ----------                              

    [Prepared questions submitted to Thomas E. White, Jr., by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                       May 9, 2001.
The Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                               Thomas E. White, Jr.
cc: The Hon. Carl Levin,
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the Department of Defense 
Reorganization Act of 1986 and related Special Operations initiatives 
for defense reform.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. From what I have learned to date, these defense reforms 
have been implemented and have achieved the desired results. Having 
said that, I believe it is important, and consistent with the intent of 
the reform legislation, that the Army continues to assess and modify 
its operations and internal procedures to meet the challenges of a 
dynamic security environment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of these reforms were 
strengthening civilian control, streamlining the operational chain of 
command, improving the efficiency in the use of defense resources, 
improving the military advice provided to the National Command 
Authorities, clarifying authority for combatant commanders, and 
enhancing the effectiveness of military operations.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I fully support the congressional goals reflected in 
the Department of Defense Reorganization Act of 1986 and other related 
defense reform legislation.
                                 duties
    Question. Section 3013 of Title 10, United States Code, describes 
the duties of the Secretary of the Army.
    Assuming you are confirmed, do you expect that Secretary Rumsfeld 
will prescribe additional duties for you?
    Answer. I anticipate that the Secretary of Defense will prescribe 
specific duties for me that will support his responsibility to ensure 
that the Department of Defense successfully accomplishes the many 
demanding and varied missions entrusted to it. If confirmed, I will 
carry out these additional duties to the best of my ability.
    Question. If so, what do you expect those additional duties will 
be?
    Answer. If confirmed, I will communicate directly and openly with 
the Secretary of Defense regarding the Army's capabilities to 
accomplish those functions that are most appropriately delegated to it.
    Question. What duties and responsibilities do you plan to assign to 
the Under Secretary of the Army?
    Answer. If confirmed, I will review the current assignment of 
functions, responsibilities, and duties within the Army Secretariat and 
determine the capacities in which the Under Secretary can most 
appropriately support my efforts to ensure that the Department of the 
Army is efficiently administered in accordance with the policies 
promulgated by the Office of the Secretary of Defense.
    Question. In carrying out your duties, how will you work with the 
Assistant Secretary of the Army for Manpower and Reserve Affairs; the 
Assistant Secretary of the Army for Installations and Environment; the 
Assistant Secretary of the Army for Financial Management; the Assistant 
Secretary of the Army for Acquisition, Logistics, and Technology; the 
Assistant Secretary of the Army for Civil Works; and the General 
Counsel?
    Answer. If confirmed, I will establish and maintain close, 
professional relationships with each of the Assistant Secretaries and 
the General Counsel. I will encourage direct and open communication 
among these officials and will foster an environment of cooperative 
teamwork within the Secretariat and with the Army staff.
       weapons of mass destruction--civil support teams (wmd-cst)
    Question. The January 31, 2001, Department of Defense Inspector 
General audit report titled Management of National Guard Weapons of 
Mass Destruction--Civil Support Teams is extremely critical of the 
management of the WMD-CST program.
    If confirmed, do you intend to play an active role in getting that 
program back on course?
    Answer. Yes. If confirmed, I am committed to ensuring that the 
teams are properly manned, equipped, trained, and prepared to 
accomplish all mission requirements.
                   quality of life program initiative
    Question. The Army is planning on consolidating all of its 
``quality of life'' programs under one single program. The service is 
making this change with the expectation that quality of life programs 
would become a more visible and integral part of the yearly funding 
request.
    Do you believe that such a plan is important to the success of the 
Army's quality of life program?
    Answer. Absolutely. First, we must ensure that we are maximizing 
the impact of available resources. Second, we need to do a better job 
of articulating the linkage between readiness and well-being as well as 
our resource requirements in this vital area.
                               readiness
    Question. Over the last few years we have seen increasing evidence 
that the readiness of the U.S. armed forces has begun to deteriorate as 
a result of the over-commitment of an under-resourced military. The 
Joint Chiefs have testified that the military services will require a 
$48 to $58 billion funding increase if the Department is to restore 
readiness and modernize for the future.
    What do you view as the major readiness challenges that would have 
to be addressed and, if confirmed, how would you approach these issues?
    Answer. If confirmed, I will review the requirements and available 
resources and to ensure that the Army is trained and ready to execute 
strategies for today and the future.
                              environment
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include environmental constraints on 
military training ranges, local community efforts to obtain military 
property, airspace restrictions to accommodate civilian airlines, 
transfer of radio frequency spectrum from the Department of Defense to 
the wireless communications industry, and many others. Unless these 
issues are effectively addressed, our military forces will find it 
increasingly difficult to train and operate at home and abroad.
    In your opinion, how serious are these problems to the Army?
    Answer. In my opinion, these problems are very serious. If 
confirmed, I will work with this committee, other services, and OSD to 
develop sound strategies for dealing with each of these problems.
    Question. If confirmed, what actions would you propose to ensure 
these issues do not prevent your service from effectively training and 
operating both at home and abroad?
    Answer. My strategy is to comply with environmental laws, work for 
measures to integrate range management with our defense mission and 
environmental obligations, and continue to seek a balanced application 
of environmental statutes affecting training.
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action, and those that 
will be out of compliance before the next budget cycle.
    Would you agree that continuing funding for this type of 
environmental cleanup is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. Yes, I agree. I will work to ensure that the Army remains 
committed to complying with Federal, State, and local regulations and 
laws.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of the environmental laws?
    Answer. No. However, I believe we need a better dialog between 
Federal, State, and local law and rulemakers and the Army. Other than 
times of national emergency, the Army should have no special 
exemptions. What we do want is more opportunity to explain impacts on 
our mission before the Federal, State, or local law or regulations are 
enacted.
    Question. Do you support the basic principle of the Federal 
Facilities Act and other laws that federal facilities, including DOD 
facilities, should be subject to the same standards as comparably 
situated civilian facilities?
    Answer. Yes, I do. The American public expects the Department of 
Defense, the Army, and all federal agencies to meet the same standards 
as civilian facilities.
    Question. The Department of Defense faces a bill for the clean-up 
of unexploded ordnance (UXO) that is at least in the tens of billions 
of dollars, and could well be in the hundreds of billions of dollars. 
At current funding levels, it has been estimated that it would take the 
military services several thousand years to remediate UXO problems on a 
DOD-wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    Answer. It is impossible to generalize regarding issues of public 
safety. If confirmed, I will ensure the Army complies with the law.
    Question. Do you believe that increased investment in UXO 
remediation technologies would be likely to produce more effective and 
efficient remediation processes and substantially reduce the 
Department's long-term clean-up liability and the time required to 
complete such clean-up?
    Answer. If confirmed, I welcome the opportunity to look into this 
difficult and critical issue as well.
     commercial versus military requirements for frequency spectrum
    Question. The Federal Government is currently conducting a series 
of studies to determine a band of frequencies that can be used for the 
operation of third generation wireless communications devices. As a 
part of this overall effort, the Department of Defense is conducting a 
study to determine the cost and operational impact that would result if 
the military services were to surrender the use of the 1755-1850 MHz 
band of frequencies on which they currently operate their equipment. As 
the Department of Defense's information requirements increase with the 
advances taking place in weapon system technology, the Department's 
requirements for frequency access will also increase. However, the 
commercial sector is also experiencing increased requirements for 
frequency spectrum to meet the demands of the American consumers. 
Spectrum is a finite resource and we have to ensure it is utilized in 
the most efficient and beneficial manner possible.
    If confirmed, what actions would you take to review your service's 
total spectrum requirements and ensure that new systems are designed to 
ensure efficient spectrum utilization by the Department of Defense?
    Answer. If confirmed, I will continue to support and encourage the 
research, development, and acquisition of systems that efficiently use 
the radio frequency spectrum in compliance with national spectrum 
policy.
    Question. If confirmed, what actions would you take if the study 
currently being conducted within the Department of Defense determines 
that there will be a significant cost and operational impact if the 
military services surrender the 1755-1850 MHz band of frequencies?
    Answer. If confirmed, I will familiarize myself with the results of 
the study and provide my assessment of its impact on Army warfighting 
capability to the office of the Secretary of Defense. I also look 
forward to working with the committee to address these challenges.
                           acquisition reform
    Question. Secretary Rumsfeld testified at his confirmation hearing 
that the cycle time for major acquisition programs conducted over the 
past several decades averages between 8 and 9 years. Others have stated 
that the cycle time may be as long as 15 to 20 years. The Secretary 
stated that this cycle time is not sufficiently responsive to urgent 
new challenges and rapidly emerging technological developments.
    What are your thoughts on specific steps that can be taken to 
reduce the cycle time for major acquisition programs?
    Answer. If confirmed, I will look at methods to reduce cycle time. 
I look forward to working with the committee on this issue.
    Question. Do you see a need for any changes to the existing 
acquisition structure and/or acquisition chain of command?
    Answer. The Army acquisition structure currently complies with the 
Goldwater-Nichols Act. If confirmed, I will carefully review this area, 
and recommend any changes that may be warranted.
                         acquisition workforce
    Question. There has been considerable pressure to reduce 
acquisition organizations on the basis of absolute numbers. DOD has 
reduced its acquisition workforce approximately 50 percent, from the 
end of fiscal year 1990 to the end of fiscal year 1999, while the 
workload has remained essentially constant, and even increased by some 
measures.
    Are you concerned that reductions to the acquisition workforce will 
have a negative effect on program management, and if so, how do you 
plan to address this problem?
    Answer. Yes, I am concerned. If confirmed, I will look into this 
important issue.
    Question. As the DOD continues to emphasize contracting out and 
competitive sourcing, the skills, training, and experience of the 
acquisition workforce will be critical in effectively managing these 
contracts. In addition, the Department's Acquisition Workforce 2005 
Task Force has reported that DOD will be faced with a significant 
demographic challenge as 50 percent of the remaining acquisition 
workforce will be eligible to retire in the next 5 years.
    Do you believe the current acquisition workforce has the quality 
and training to not only adapt to new acquisition reforms, but to the 
increased workload and responsibility from managing privatization 
efforts?
    Answer. The acquisition workforce has done a phenomenal job of 
stepping up to the workload driven by increased outsourcing and 
privatization efforts. If confirmed, I will diligently work to get our 
people the training to ensure they are able to work smarter not just 
harder.
                      base realignment and closure
    Question. Over the past several years, various departmental 
witnesses have testified that there is excess defense infrastructure 
and requested Congress to authorize another round of base closures.
    Do you believe that we have excess defense facilities and, if so, 
where does this excess capacity exist?
    Answer. Yes. If confirmed, I will look for excess capacity and make 
recommendations to consolidate or combine functions.
                           service stovepipes
    Question. One of the principal criticisms of the Department of 
Defense is that the military services continue to pursue their 
individual systems--from logistics to data management--which increases 
costs and hinders interoperability. Although there have been efforts to 
remove these service stovepipes in the past, they continue to exist.
    If confirmed, what actions would you take to eliminate service-
unique systems where systems could be developed to serve all of the 
services?
    Answer. If confirmed, I will fully support interoperability among 
the services.
                  outsourcing of commercial activities
    Question. Do you believe that outsourcing of non-core activities 
can yield substantial savings for the Department of Defense?
    Answer. There are functions that can and should be performed by the 
private sector due to their expertise and technical capabilities.
    Question. Do you agree that public-private competition is an 
essential precursor to any outsourcing effort in the Department of 
Defense?
    Answer. Yes.
                        military family housing
    Question. In response to a continuing shortfall in funding for 
family housing construction and repair, the Department proposed the 
Military Housing Privatization Initiative as one part of their program 
to upgrade all military housing to standard by 2010. Although Congress 
enacted this authority in the National Defense Authorization Act for 
Fiscal Year 1996, the services have not made the anticipated progress 
in the privatization effort.
    What are your views on the role of military family housing in 
recruiting and retention?
    Answer. I think that adequate housing for soldiers and families is 
an important quality of life issue for soldiers. Maintaining and 
sustaining safe, attractive, and convenient housing for our soldiers 
and their families is one of the Army's continuing challenges.
    Question. Do you support the goal of upgrading all military family 
housing in your service to established standards by 2010?
    Answer. Yes.
                           army modernization
    Question. Continued high operations tempo and inadequate 
modernization funding are taking a toll on the Army. Without sufficient 
modernization, the Nation could find itself putting soldiers in 
``harm's way'' without the tools they need to perform their mission and 
ensure their own safety.
    If confirmed, how would you go about establishing the level of 
procurement and R&D funding required to sufficiently modernize our 
legacy force, field and operate an interim force, and develop an 
objective force over the next 5 years?
    Answer. If confirmed, I will support balanced modernization, 
seeking to develop and field combat-capable units through an 
appropriate mix of selective fielding of new equipment, rebuilding and 
upgrading existing equipment, and preserving needed elements of current 
equipment.
                          defense laboratories
    Question. Congress has authorized the Department to give laboratory 
directors direct hiring authority to enable them to compete for 
scientific and engineering talent. To date, the Department has been 
reluctant to use this authority.
    Do you support giving the Department's laboratory directors the 
authority to make direct hires without having to go through an 18-month 
review process?
    Answer. Yes. I don't know the details but, if confirmed, I will 
look into the process.
                          army transformation
    Question. This committee has commended General Shinseki for his 
bold initiative to fundamentally change the Army to be better able to 
respond to future threats. While there is widespread support for the 
long-term transformation of the Army, there are significant concerns 
about the near-term initiative to field an interim force designed to 
meet what are described as ``critical'' operational shortfalls. Despite 
assertions that Interim Brigade Combat Teams are a ``full spectrum'' 
force, to many these forces appear to be largely designed for 
peacekeeping activities and Army descriptions confirm that these forces 
are ``optimized'' for peacekeeping. A recent Army information paper 
notes, ``Funding for transformation, while greatly increased, remains 
far short of validated requirements. Achieving Secretary of Defense 
guidance for the Army transformation while maintaining readiness and 
sustaining people programs cannot be accomplished without additional 
resources.'' Finally, ``without new funds, the Army cannot maintain 
readiness and achieve the transformation.''
    How can the Army justify a proposed multi-billion dollar investment 
in an ``interim'' force with such looming modernization challenges for 
both the legacy force and future objective force?
    Answer. It is my understanding that the interim force fills a near-
term capabilities gap that the Army must address in order to maintain 
readiness.
    Question. How would you prioritize funding requirements between 
legacy force shortfalls (necessary to meet the national military 
strategy today), objective force requirements, and interim force 
requirements?
    Answer. All three legs of the transformation are important and 
interdependent. However, if we are to transform, we must first maintain 
our focus on the S&T necessary to develop the objective force. The 
legacy force guarantees our near-term readiness and gives us the luxury 
of being able to transform. Finally, the interim force enables us to 
bridge a capabilities gap that exists today and has existed for the 
past decade.
    Question. Do you see any options for achieving an interim 
operational capability less expensively through organizational, 
doctrinal, or tactical changes?
    Answer. No, the operational gap we face stems from having two types 
of forces: light infantry that is deployable but not survivable enough, 
and heavy forces that are lethal and survivable but not deployable 
enough. We need this interim force to bridge the gap in operational 
capabilities, and that means providing lethal, survivable, and 
deployable platforms to our lighter forces.
    Question. Do you agree with the assessment of the previous 
Secretary of the Army that Army transformation cannot be achieved 
without increasing the Army's share of the defense budget?
    Answer. Secretary Rumsfeld is currently in the process of 
conducting strategic defense reviews. I wholeheartedly support his 
efforts and I look forward to assisting him in this process. That will 
shape the national security and military strategies and desired 
military capabilities.
    Question. Do you believe that the Army has shortchanged future 
readiness to fund near-term readiness requirements?
    Answer. One of the main benefits of Secretary Rumsfeld's reviews 
will be to address the trade-offs between current operations and long-
term investments to ensure we do not jeopardize our future defense 
capabilities.
    Question. Section 113 of the National Defense Authorization Act for 
Fiscal Year 2001 requires the Secretary of the Army to conduct a 
comparative evaluation of interim armored vehicles selected for the 
fielding of interim brigade combat teams with equipment already in the 
Army inventory.
    Will you comply with the spirit and intent of this law to carry out 
a side-by-side comparative operational evaluation of units similarly 
organized, trained, and equipped, other than for the differences in 
medium armored vehicles?
    Answer. Yes.
                        protected communications
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes.
    Question. If confirmed, what actions would you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will ensure that Army personnel fully 
understand the scope and application of the Whistleblower Act. 
Educating senior leaders on the need to protect service members from 
reprisal is one of my top priorities. I will utilize my Inspectors 
General to conduct teaching and training, thus preventing acts of 
reprisal. I will ensure that the Army workforce is educated on the law.
                        officer promotion system
    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest moral and ethical 
values. We are frequently asked to confirm the promotion of officers 
who have substantiated allegations of misconduct that have not been 
considered by the boards that selected these officers for promotion. At 
the same time, the services inform us that they have many highly 
qualified officers for each available general and flag officer billet.
    What steps would you take to ensure that only the most highly 
qualified officers are nominated for promotion to general and flag 
officer rank?
    Answer. I understand, and share, your concern. If confirmed, I will 
continue to ensure that the Army nominates only those officers who 
display the highest values and warrant promotion to the general officer 
ranks.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    Based on your private sector experience, do you believe the 
Department of the Army is investing enough in its infrastructure?
    Answer. Based on the existing condition of the Army's aging 
facilities, it is apparent that not enough is invested in its 
infrastructure. Facilities continue to degrade each year and without 
additional real property maintenance resources there is the need to 
replace major components rather that repair existing ones and this will 
be more expensive.
    Question. How does the Army's investment in its infrastructure 
compare to what you are used to in the private sector?
    Answer. The private sector is driven by a profit incentive and a 
return on investment to its corporate shareholders for publicly traded 
companies. While the momentum may differ, there are analogies and 
common techniques that can be applied.
    Question. What steps would you plan to take to address this issue?
    Answer. If confirmed, I support RPM as one of the top priorities 
for additional funding, continuing to reduce the Army's RPM requirement 
by demolishing excess facilities, and privatizing utility systems, and 
continuing to explore opportunities for partnerships with the private 
sector.
                    civilian control of the military
    Question. Press reports indicate that increasing civilian control 
of the military services will be a priority of this administration.
    What changes would you recommend to Secretary Rumsfeld to make in 
your duties and responsibilities or those of the Under Secretary or 
Assistant Secretaries in your department?
    Answer. If confirmed, I will look at duties and responsibilities 
and make any recommendations which may be warranted.
    Question. Section 3014(c) of Title 10 requires that the Office of 
the Secretary of the Army have sole responsibility for Acquisition, 
Auditing, Comptroller (including Financial Management), Information 
Management, Inspector General, Legislative Affairs, and Public Affairs.
    If confirmed, would you review each of these functional areas to 
ensure that the Army is in compliance with the statutory requirement?
    Answer. Yes.
    Question. The services have traditionally had a uniformed flag rank 
officer rather than the Assistant Secretary for Financial Management 
supervise their budget office. Do you intend to follow this arrangement 
or do you plan to increase civilian control over your service's budget 
decisions?
    Answer. If confirmed, I intend to retain a general officer to 
supervise the budget office, and I will continue to exercise civilian 
control through the Assistant Secretary for Financial Management and 
Comptroller. I believe civilian control of the Army is well-understood 
and acknowledged, and I value the blend of experience and skills in an 
organization with both military and civilian professionals.
    Question. The service secretaries have traditionally delegated 
management of readiness to the uniformed services. What role do you 
intend to play in readiness issues?
    Answer. I believe the Secretary of the Army has a very real and 
active role in providing for the readiness across the service. I am 
very aware of the wide range of issues affecting readiness in the Army 
to include unit readiness status, infrastructure requirements, 
strategic mobility, the ongoing transformation effort, quality of life 
issues for our soldiers and families, and the impacts of funding 
levels. I anticipate working closely with the uniformed leadership to 
address these challenges in the current political and economic 
environment, particularly as changes in our national military strategy 
may evolve and impact the Army.
                           civilian workforce
    Question. What steps would you plan to take to bring new people 
with the desired skills into our civilian workforce as more and more of 
the current workforce is becoming retirement eligible?
    Answer. If confirmed, I will examine all civilian workforce 
planning and shaping initiatives to help us cope with an aging 
workforce and tight labor markets.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Secretary of the Army?
    Answer. I believe the major challenge the next Secretary of the 
Army will face is change. The challenges the Army faces are similar to 
those of the other services as we collectively readjust our 
organizations to the threats our country faces. I see the next 
Secretary of the Army's charge as one to manage and maintain the 
momentum of changes that will assure our Army's preeminence in the 21st 
century to deter threats and defend our national security interest and 
do it within the joint community.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I think the Army must attract, develop, and 
retain America's best and brightest, while providing for their quality 
of life and well-being. The Army must assure readiness, while 
transforming itself into an Army capable of dominance along the full 
spectrum of military operations in the 21st century.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                           excess facilities
    1. Senator Thurmond. Although the four previous base closure rounds 
have closed or realigned over 90 major and 200 minor military 
installations, the Department indicates that there is still excess 
capacity. The immediate reaction to this excess is that we must have 
additional base closures to eliminate the excess. I am not convinced 
that base closure is the only solution. I believe we should use this 
capacity to our advantage. We can work with the private sector to use 
this property on a dual-use basis and at the same time retain the 
facility for future surge capacity.
    What are your views on the potential of leasing excess facilities 
to the private sector?
    Mr. White. I believe that, under the right economic circumstances, 
there is a great potential for the dual-use of some of our excess 
capacity. It depends largely on the attractiveness of the individual 
military properties for private sector use and the willingness of the 
private sector to invest in those properties. We are aggressively 
pursuing new opportunities under the guidance of the oversight 
committees. Our goal is to reduce maintenance and repair requirements 
while retaining long-term access to our properties.
    However, dual-use cannot solve the Army's excess capacity problem. 
In addition to leasing, excess capacity offers an opportunity to 
achieve economies in installation operations and in improved business 
processes through realignment of activities. To realize the benefits of 
significant realignment actions requires Base Realignment and Closure 
(BRAC) authorization. BRAC provides a practical means for significant 
restructuring and restationing of Army forces not possible otherwise. 
Past BRAC consolidation created new synergies in training such as the 
Maneuver Support Center at Fort Leonard Wood, Missouri. BRAC also 
allows for recapitalization of Army assets by making possible the 
construction of state-of-the-art facilities at gaining installations 
and enhancing the synergy achieved through consolidation of training, 
research and development, cross-service activities, etc.

                           ac/rc relationship
    2. Senator Thurmond. Although the relationship between the active 
Army and its Reserve components has improved, it is still a strained 
relationship. Unfortunately, in the past the civilian leadership of the 
Army has not taken a proactive role in resolving this festering 
problem. If confirmed as the Secretary of the Army, what actions will 
you take toward improving the relationship between the active and 
Reserve components of our Army?
    Mr. White. I am strongly committed to the full integration of the 
Active and Reserve components. General Shinseki and I will make full 
use of such vehicles as the Army Reserve Forces Policy Committee and 
the Reserve Component Coordination Council to identify and eliminate 
existing or potential barriers to integration. We will also continue to 
develop initiatives to solidify the separate components.
    I look forward to working with you and Congress to put programs and 
policies in place that will further meld the unique strengths of the 
Army's Active and Reserve components.

                            job satisfaction
    3. Senator Thurmond. Last summer a report based on polling and 
focus groups with more than 3,000 commissioned Army officers revealed 
deep frustration with their senior leaders and peacekeeping 
assignments. More than two-thirds of the officers in a survey sample 
agreed with the statement, ``I see no possibility for continued job 
satisfaction in the Army.''
    Although the Chief of Staff, General Shinseki, has taken action to 
resolve some issues, there is a continuing concern within the ranks.
    As a former troop commander, are you concerned about the results of 
this survey? How do you plan to address the issue, if confirmed?
    Mr. White. I am deeply concerned about the morale and job 
satisfaction of our officers. Over the past year, the Army has 
intensively studied the causes behind increased attrition. A task force 
completed work on the issue last year and developed several 
recommendations. The following initiatives are intended to directly 
address junior officer attrition and morale:

          1. Improve strategic communications with the field through 
        the use of universal email accounts and a central website for 
        officer business;
          2. Implement a system to measure and track personnel tempo 
        (perstempo) and consider perstempo when making assignment 
        decisions;
          3. Expand assignment options following the Captains Career 
        Course (CCC);
          4. Develop increased opportunities for advanced education; 
        and
          5. For CCC graduates being assigned to short-tour areas, 
        guarantee follow-on assignments to tactical units where they 
        can satisfy branch qualification requirements.

    The good news is that captain retention has improved and the 
continuation rate appears to have normalized somewhat over the 
preceding 2 years. However, we still need to retain 350 more captains 
of the approximately 2,100 that separate annually. The Army has made 
progress this year, with 184 fewer losses to date than projected. 
Clearly, it is too early to declare success, but the attrition 
situation indicates we are making progress in improving the standing of 
the Army in comparison to other employment opportunities.
    The Army will remain focused on this important issue and seek to 
maintain the positive momentum achieved thus far.

              sustainment, restoration, and modernization
    4. Senator Thurmond. According to the General Accounting Office, by 
1992 the military had accumulated an estimated $8.9 billion in deferred 
maintenance. By 1998 that had grown to $14.6 billion. It now exceeds 
$16.0 billion and is growing. Last year in his testimony before 
Congress, the GAO's Neil Curtain said, ``There really is a risk of 
losing the value of those (military) facilities. Real property 
maintenance is in disarray.'' I would like your views on the priority 
you will be placing on installation readiness and eliminating this 
backlog in maintenance and repair.
    Mr. White. The Army's $17.8 billion sustainment, restoration, and 
modernization (SRM) backlog is a top challenge, and we are treating it 
as such. The backlog will continue to grow if SRM sustainment funding 
is less than 100 percent of the requirement. However, to improve SRM 
funding requires 10 years of a top-line increase to overall Army 
funding because of the interplay between funding for operational tempo 
and SRM. We have restricted migration from optempo to pay other bills, 
and so we are seeking to improve SRM funding over the Future Years 
Defense Plan. Additional funding would be used to fund annual 
sustainment at 100 percent, begin restoration of failing facilities 
that will reduce existing backlog, and modernize facilities to meet the 
new standards. This is one of the Army's highest priorities.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                               landpower
    5. Senator Santorum. Recent press reports about the ongoing 
strategic reviews in the Department of Defense initiated by Secretary 
Rumsfeld have suggested that the Army will not play the prominent role 
it played as a component of our national military strategy in the past. 
In fact, some reports have suggested that a significant reduction in 
land forces will result after the results of these reviews are made 
public.
    What are your views of the role of landpower for future national 
security challenges? Do you believe we can afford to significantly 
reduce our ground forces and still be able to respond to the wide range 
of defense challenges facing our Nation? What role do you intend to 
play in overseeing change within the Department for the Nation's 
premier land force?
    Mr. White. Let me first begin by saying that it is critical that 
our security strategy remain grounded in the pursuit of our enduring 
global national interests and responsibilities. To protect and advance 
those interests, and fulfill our responsibilities, the armed forces 
must be able to deter potential challengers, reassure friends and 
allies, compel adversaries who seek to do us harm, and support civil 
authorities at home and abroad. While we must be selective and focused 
in how and where we employ our armed forces, we should expect the 
National Command Authorities will employ force, particularly the Army, 
in a manner consistent with the interests at stake.
    Our global interests and responsibilities, as well as two centuries 
of experience, show a clear need for land forces to remain at the core 
of future joint operations. To protect and advance those interests, 
land forces provide a broad array of capabilities for meeting the 
diverse security challenges our Nation now faces. Their flexibility and 
adaptability provide the National Command Authorities with a wide range 
of military options to meet these diverse challenges. By their very 
presence, land forces communicate the strongest signal of America's 
strategic intentions and commitments. Through peacetime military 
engagement, security assistance, and combined exercises with foreign 
security forces, U.S. land forces cement alliances, coalitions, and 
strategic partnerships. The ability of land forces to conduct forcible 
entry--by air and sea--coupled with their unique capability to sustain 
ground campaigns are central aspects in the deterrent value of the 
joint force. When deterrence fails, landpower is the decisive component 
of conventional forces. The nature of conflict and war is enduring. 
Land forces compel adversaries to cease hostile or destabilizing 
action. While dominance of sea, air, space, and the electro-magnetic 
spectrum are key enablers, land dominance alone brings hostilities to a 
decisive conclusion by establishing and maintaining favorable security 
conditions that allow for more comprehensive and enduring solutions to 
complex crises. Furthermore, land forces provide the broad range of 
capabilities required to support civil authorities at home and abroad, 
whether responding to natural disaster, providing missile defense, or 
mitigating the consequences of an attack on the homeland. Finally, in 
addition to the obvious direct role in our national security, land 
forces contribute to our national well-being and that of our friends 
and allies by providing a secure and stable environment that is 
essential for economic growth and prosperity. Given our national 
interests, the range of defense challenges we face now and could 
realistically face in the coming decades, I do not believe we can 
afford to significantly reduce our ground strength; however, we can 
transform it to better meet these challenges.
    The Army is nearly 2 years into a comprehensive transformation to 
become more agile and responsive across the full spectrum of military 
operations. This transformation is driven by both changes in the 
strategic and operational environments, as well as the promise afforded 
by advanced technology. I intend to make sure that Army transformation 
fully supports our national military strategy and gets the share of the 
Defense resources needed to ensure the U.S. Army remains the best in 
the world. This will be my top priority.

                        modernization financing
    6. Senator Santorum. Your credentials for the position are 
impressive and we have high hopes for you as the next Secretary of the 
Army. Your success as a former Army general officer and your most 
recent success in the business world put you in a unique position to 
contribute toward our national defense. This committee has had a number 
of concerns about Army modernization over the last couple of years due 
to inadequate resources for force modernization which has resulted in 
inadequate modernization plans.
    In business, I would assume that you would not tolerate a business 
plan that could not possibly be supported by the best case projections 
of revenues. Additionally, if a subordinate came to you with an 
inadequately resourced business plan and told you that he was going to 
pursue two additional goals that would also require extensive 
resources, I suspect you would send him back to the drawing board to 
restructure the plan to more adequately reflect available, or 
projected, resources. We appear to have a similar situation with the 
Army today.
    How do you intend to address the clear imbalances between resources 
and modernization plans in the Army today?
    Mr. White. Over the past 2 years, the Army's investment strategy 
reflects a paradigm shift from resourcing legacy capabilities to 
resourcing the transformation to the objective force. The Army has 
already made tradeoffs, killing or restructuring 18 programs in the 
last 16 months, and investing over $9 billion in interim and objective 
force capabilities. In collaboration with the Defense Advanced Research 
Projects Agency, the Army is aggressively funding the science and 
technology efforts leading to the design and development of our Future 
Combat System. We have also funded the system design and development of 
more mature systems, such as Comanche. Additionally, we have focused 
our enhancements of the legacy force by identifying and prioritizing 
those systems that have applicability to the objective force, such as 
tactical unmanned aerial vehicles.
    Ultimately, Army transformation is about capabilities, not 
resources. For those systems that are crucial to today's readiness, but 
will not transition to the objective force, we will only invest the 
amount necessary to modernize and selectively upgrade. For example, in 
our ground maneuver systems, we will only upgrade the number of Abrams 
tanks and Bradley fighting vehicles that are needed for the 
Counterattack Corps. The remainder of the force will have less 
modernized systems, depending on priorities. The same logic has been 
applied to our aviation fleet. We will upgrade fewer Apaches to the AH-
64D Longbow model, while the remainder of the fleet will retain 
recapitalized AH-64As with reliability improvements. The Army has 
adopted this strategy of selective recapitalization to generate the 
investment capital necessary to field objective force formations 
beginning in fiscal year 2010, while retaining the ability to fight and 
win on any battlefield, against any adversary, throughout the period of 
transformation.

                          grizzly requirement
    7. Senator Santorum. Is the requirement for an in-stride, complex-
obstacle breaching capability still valid, even though the Army failed 
to fund the Grizzly program last year? Without Grizzly how will the 
requirement for the counter offensive force be met?
    Mr. White. Yes, the requirement for an in-stride, complex obstacle 
breaching capability as offered by the Grizzly is still valid. However, 
due to funding constraints associated with transformation, the Grizzly 
program remains unfunded and is one of our unfunded priorities for 
legacy systems. Without Grizzly, the Army will be forced to continue 
its current time-consuming breaching technique that requires a 
coordinated operation of equipment and soldiers exposed to hostile 
fire.

    8. Senator Santorum. Last year Congress approved $15 million for 
the continued development of the Grizzly program. We understand this 
money has not yet been released to the Army and, therefore, not 
available for the Grizzly program. The Army is currently considering 
related transformation and budgetary prioritization issues. In 
recognition of last year's highly successful test results, would you 
agree this fiscal year 2001 Grizzly money should be obtained so the 
development of this program can continue until a final decision has 
been made?
    Mr. White. Despite last year's successful tests, the Army decided 
to terminate the program based on an assessment of affordability and 
acceptance of operational risk against higher transformation 
priorities. Because the Army will not fund Grizzly to support 
transformation, it would not be useful to obtain the $15 million in 
fiscal year 2001 to support the program. In addition, the $15 million 
would pay less than 40 percent of the requirement for fiscal year 2001. 
The unfinanced requirement for Grizzly this year is $40 million.
    It should be noted, however, that the Army still has a valid 
requirement for a breacher with in-stride, complex obstacle breaching 
capability.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
                   chemical demilitarization program
    9. Senator Allard. The Army is busy cleaning up the Rocky Mountain 
Arsenal in Colorado. An example of their efforts was the great job of 
disposing of Sarin gas bomblets they came across during the clean-up. 
Unfortunately, the Army expects to find more bomblets.
    Will you ensure that the Army continues to take the steps necessary 
to ensure they find and dispose of all these munitions? What 
technologies is the Army researching and developing for the destruction 
of unexploded ordinances such as those at the Arsenal?
    Mr. White. The Army has prepared a plan for clearing the debris 
pile at Rocky Mountain Arsenal, which the State of Colorado has 
approved. The Army is currently executing this plan and expects to 
complete this work by mid-July 2001. The Army is continuing to test the 
Explosive Destruction System (EDS) and has temporarily returned it to 
Aberdeen Proving Ground, Maryland, to complete operational testing, 
which is scheduled to end in mid-July 2001. The EDS will remain 
available for the disposal of future bomblet finds at Rocky Mountain 
Arsenal. While refining the EDS, the Army is also researching several 
other technologies for the destruction of unexploded ordnance including 
plasma arc, gas phase chemical reduction, super critical water 
oxidation, a cerium intermediary process, wet air oxidation, persulfate 
oxidation, catalytic transfer hydrogenation, and a variety of blast 
chamber technologies.

    10. Senator Allard. Will you continue to support all efforts to 
properly and quickly dispose of the chemical weapons at the Pueblo Army 
Depot?
    Mr. White. Yes. The Army's efforts will continue to focus on 
disposing of the stockpile at Pueblo Army Depot as quickly as possible, 
while ensuring that all safety and environmental compliance 
requirements are fully met. I believe that we have an obligation to 
eliminate the public risk caused by the continued storage of the 
chemical weapons as quickly as possible at Pueblo Army Depot and the 
other stockpile storage sites. The way to accomplish this is to ensure 
adequate funding, utilize the most effective and proven technologies 
available today, and move forward with all preparations in an 
aggressive and systematic manner.

    11. Senator Allard. What are the consequences of not achieving the 
2007 Chemical Weapons Convention (CWC) deadline, both internationally 
and programmatically?
    Mr. White. First, let me state that I will in no way pursue a 
treaty deadline if the pursuit of that deadline means putting people at 
a higher risk. That said, the Army remains deeply committed to 
fulfilling the requirements outlined by the CWC to destroy the chemical 
stockpile by April 29, 2007. In fact, the U.S. is well ahead in 
complying with the next intermediate deadline--destruction of 20 
percent of the agent tonnage at entry into force of the treaty, by 
April 29, 2002. This milestone should be reached within the next 2 
months.
    As the Department has indicated in the past, the longer the 
stockpile remains in storage, the greater the risk of a catastrophic 
event (tornado, earthquake, aircraft crashing into an igloo, etc.) 
occurring at any given site. So, from a programmatic perspective, 
destruction of the chemical stockpile as early as possible has been, 
and continues to be, a major thrust of the chemical demilitarization 
effort, CWC timetables notwithstanding.
    With regard to international consequences, Article XIII of the CWC 
states that the Conference of States Parties has the authority to take 
necessary measures to ensure compliance with this convention and to 
redress and remedy any situation, which contravenes the provisions of 
this convention. These measures include sanctions consistent with 
international law. It should be noted that there are provisions for a 
CWC signatory to seek a 5-year extension to the April 2007 deadline. 
The Department will continue to strive to meet its requirements in a 
manner compliant with international agreements while ensuring safety to 
the demilitarization workers, the communities near the disposal 
facilities, and the environment.

                           cavalry regiments
    12. Senator Allard. Armored cavalry regiments are a highly 
important and capable part of our force structure, particularly as the 
Army transforms to a more lighter and lethal force. Can you give me 
your thoughts on the need to maintain cavalry regiments, such as the 
3rd Armored Cavalry Regiment at Fort Carson?
    Mr. White. Cavalry regiments play a critical role in fulfilling the 
Army's current and future ability to execute the national military 
strategy and meeting Commander in Chief (CINC) requirements.
    Armored cavalry regiments (ACRs), both Active and Reserve 
component, are among a select few Army forces which are dual-
apportioned for regional contingency planning for both major theater 
wars, a function of their importance to the CINCs.
    The ACR is specifically designed, with regard to force structure 
and capabilities, to perform certain doctrinal tasks that are not 
typically assigned to a heavy division maneuver brigade. Doctrinally, 
the ACR operates as part of a joint task force or corps to which it is 
assigned. It is the corps commander's ``eyes and ears.''
    Currently there are four corps in the Army, but only three 
deployable cavalry regiments to support them. The 2nd Light Cavalry 
Regiment is aligned with XVIII Corps, the 3rd Armored Cavalry Regiment 
is aligned with III Corps (the Counter Attack Corps), and the 278th 
Armored Cavalry Regiment, Tennessee Army National Guard, may operate 
with both I Corps and V Corps.
    As part of the Army's transformation, the U.S. Army Training and 
Doctrine Command is examining the ability of interim forces to perform 
traditional cavalry missions as well as requirements for an interim 
cavalry regiment within the transforming Army.

                    space commission recommendations
    13. Senator Allard. Secretary Rumsfeld announced his 
recommendations regarding our military space organization as encouraged 
by the Space and National Reconnaissance Office Commissions. Please 
comment on the importance of outer space and space activities to the 
national security and economic well-being of the United States, as well 
as our allies and friends. Do you foresee any need for legislative 
changes to accomplish these recommendations? Please comment on the 
Secretary's recommendations specifically as it relates to your service.
    Mr. White. As the Secretary of Defense outlined in his press 
conference on May 8, 2001, the Nation's operations in space have made 
us both dependent and vulnerable. The Space Commission was undertaken 
to ensure that the management and organization of our national security 
space program reflects the importance of space to the Nation. The focus 
of the Space Commission recommendations centers on the organization and 
management of space activities, which affect the Air Force. The Air 
Force and the National Reconnaissance Office have established 
approximately 14 integrated product teams (IPT) to examine the major 
topics outlined in the Space Commission Report. These include executive 
agency, space acquisition executive, requirements, technology, major 
force program, and the realignment of Air Force headquarters and field 
commands. Although these efforts are in the initial phase, the Army is 
an active member of the IPTs to ensure that the Army's equities are 
adequately addressed. The Army believes that space is an inherently 
joint environment in which Army space operations will significantly 
improve its ability to conduct decisive and sustained ground operations 
in support of national security strategy objectives. As we continue our 
examinations, we will be better able to determine specific impacts to 
the Army.
                                 ______
                                 
               Questions Submitted by Senator Jim Bunning
                   chemical demilitarization program
    14. Senator Bunning. At a recent Senate Defense Appropriations 
Subcommittee hearing which reviewed the Chemical Demilitarization 
Program, testimony was given which called into question the Army's 
ability to meet cost and schedule goals. This begs the question of 
whether they are having equal difficulty meeting important safety 
requirements.
    Are you prepared to use the influence of your office to ensure that 
this program is run in the safest and most transparent manner possible?
    Mr. White. I agree that the Army has experienced challenges in 
meeting its cost and schedule goals; however, the portion of this 
growth has come from the commitment to meeting important safety and 
environmental protection requirements. Since the start of this program, 
the Army has seen a number of changes in both safety and environmental 
protection regulations and laws. The commitment has been and will 
always be to meet all safety and environmental regulations and laws. 
This commitment continues to create pressure on costs and schedules.
    I recognize the importance of eliminating public risk caused by 
continued storage as quickly as possible by destroying the stockpile. I 
believe the Army is utilizing the most effective and proven methods to 
destroy the stockpile and our goal is to continue to destroy the 
stockpile in a way that is safe and protective of the public, the 
workers, and the environment as quickly as possible. I will ensure that 
all decisions to be made that impact the local communities are clearly 
and openly communicated, and that public input is consistently sought.

    15. Senator Bunning. What steps would you take if you became aware 
that officials from the Chemical Demilitarization Program were 
intentionally providing misleading information to Congress and the 
public?
    Mr. White. First, let me say that I will not tolerate such behavior 
from any of the staff under my direction. If evidence of intentional 
misleading were brought to my attention, I would take the appropriate 
legal action consistent with Army and Department of Defense policy.

    16. Senator Bunning. I am deeply concerned for the safety of the 
55,000 people who live near the chemical weapons stockpile in the Blue 
Grass Army Depot. Their lives would be seriously endangered if anything 
went wrong during this destruction process.
    If confirmed, what steps will you take to ensure that this program 
is run in the safest manner possible?
    Mr. White. I recognize and understand your concern. Safety will 
continue to be our highest priority in performing this mission. There 
are three measures I will take to ensure that the destruction process 
is operated as safely as possible. First, I will insist that any 
facility built at Blue Grass be of the highest quality of design and 
construction. Second, the facility will be fully tested and the workers 
will be trained to the highest standards before any operations begin. 
Finally, after the first two steps are accomplished, I will ensure that 
the operations of the facility are continuously reviewed to ensure 
safety and environmental standards are met for the life of the 
facility.

    17. Senator Bunning. Do you consider incineration to be the most 
modern technology available for the destruction of chemical weapons?
    Mr. White. I believe that there are a number of ways to destroy the 
chemical weapons; however, I also believe that we need to utilize 
technologies that are proven and safe, can handle the diversity of 
munitions in our stockpile, and can do it in a timely manner. 
Presently, incineration has been shown that it can meet these 
requirements. Utilizing incineration, the Army has destroyed over 
14,238,000 pounds of chemical agent, which equates to over 22.6 percent 
of the United States stockpile destroyed. Incineration is also 
extremely effective in destroying chemical agents at better than a 
99.999 percent destruction and removal efficiency. The Army will 
continue to evaluate alternative technologies, but continues to support 
incineration as the safest and most effective way to destroy the full 
spectrum of munitions and agents at our stockpiles that have multiple 
munition types. If and when other technology solutions are developed 
that are shown to be as safe and can be implemented at the same or 
lower cost as incineration, the Army will definitely consider the use 
of alternative technologies.

    18. Senator Bunning. What are your alternate plans if the community 
near Blue Grass objects to incineration as the method to destroy the 
chemical weapons?
    Mr. White. The public has several opportunities to become involved 
at Blue Grass during the technology selection process. Currently, an 
environmental impact statement (EIS) is being prepared. This EIS will 
look at the impact to the environment caused by the disposal 
technologies, including incineration. A public meeting was held in 
January with the purpose of gathering comments from the general public. 
Before the EIS is completed in May 2002, the public will have two more 
opportunities to provide comments and concerns. The preliminary draft 
is due to be competed this fall and will be available for public review 
and comment at that time. The public will be able to review and comment 
on the final draft that is due this coming winter.
    In addition, the Resource Conservation and Recovery Act requires 
that the Army submit a permit application. Prior to submitting the 
application, the Army will hold a public meeting. The permit 
application details the process and will be available for public review 
and comment. The Clean Air Act also requires a permit application that 
the public can review and comment upon. In addition, the Army operates 
an extensive public outreach and information program within the 
community.
    All of these public involvement avenues will be used to support the 
selection of the most appropriate technology for Blue Grass. No matter 
which technology is chosen, I will ensure that the Army continues to 
work with the local community to address their concerns and inform and 
involve them meaningfully in the disposal program.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton
                         crusader technologies
    19. Senator Dayton. As I see it, the Army has made a significant 
investment in state-of-the-art, 21st century technologies in the 
Crusader program. Those technologies, when demonstrated in Crusader, 
will place the Army well on its way to achieving its transformation 
goals and realizing its future combat platform, the Future Combat 
System. If you don't complete Crusader, how will the Army attempt to 
mature those technologies, demonstrate their combat utility, and 
maintain your aggressive transformation time line?
    Mr. White. Crusader is a vital technology carrier for our 
transformation and future combat systems. In fact, it is the only 
system currently in development with over two dozen new technologies 
being integrated onboard a single ground combat platform for the first 
time. As the Army moves toward fielding Crusader, we will continue to 
develop, refine, and validate the doctrine and tactics that rely on 
cockpit automation, robotics, and information exploitation, in lieu of 
soldier-performed tasks that will also be applied in our future combat 
systems. In addition to developing the integrated crew cockpit, robotic 
munitions handling, projectile tracking radar, advanced composites, 
light metal fabrication techniques, and various protection and 
susceptibility reduction technologies, Crusader will prove out many of 
the sophisticated modeling, simulation, design, and integration 
processes that will provide the foundation for these future combat 
systems.
    Absent Crusader, many of the advanced technologies and processes 
currently being developed by Crusader with application to our future 
combat systems will have to be developed by the individual systems or 
supported in the technology base. This defers the risks and transfers 
the burden for maturation of these technologies and processes from 
Crusader to the technology base and future systems. Additionally, this 
increases the resources required by the technology base and future 
combat systems to meet our transformation timeline.

    20. Senator Dayton. It would appear that the Army has narrowly 
characterized Crusader as a legacy force system, destined to support 
your one remaining mechanized corps. Yet, when we look at what the Army 
is proposing in its transformation, I see that the dependence upon 
long-range, precision strike capabilities growing, not diminishing for 
your interim brigade combat teams and your objective force. Your light, 
mobile platforms will want to avoid direct fire exchanges and destroy 
enemy systems long before they engage. Isn't that what Crusader is 
designed to do? With its improved strategic deployability, wouldn't the 
Army want to augment these new formations with small numbers of rapidly 
deployable Crusaders? So why isn't Crusader identified among your 
transformation systems, like Comanche?
    Mr. White. Crusader is specifically designed to meet the 
requirements of our transforming Army. Crusader is the cannon artillery 
that our legacy force's counterattack corps requires to accomplish its 
mission during the transformation. When added to the Abrams M1A2 System 
Enhancement Program tank, Bradley A3 fighting vehicle, M270A1 missile 
launcher, and Apache Longbow, Crusader completes the array of combat 
systems required for the counterattack corps to gain and maintain 
combat overmatch against potential foes during the transformation. 
Crusader's long-range precision fires, survivability, and lethality 
make it a candidate for augmenting our interim force based on mission 
requirements. Additionally, while Crusader is not a part of our 
objective force, it could potentially fight with or in support of this 
future force from the initial fielding of the future combat systems in 
2008 through approximately 2030 according to our current projections. 
As the Army begins to field the objective force, the Crusaders will 
cascade and replace the Paladin howitzers and field artillery 
ammunition support vehicles, fielded today in the corps artillery 
units.
                                 ______
                                 
    [The nomination reference of Thomas E. White, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 1, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Thomas E. White, Jr., of Texas, to be Secretary of the Army, vice 
Louis Caldera.
                                 ______
                                 
    [The biographical sketch of Thomas E. White, Jr., which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Thomas E. White, Jr.
    Thomas E. White, Jr., is Vice Chairman of Enron Energy Services, 
the Enron Corp. subsidiary responsible for providing energy outsource 
solutions to commercial and industrial customers throughout the United 
States. He is also a member of Enron's Executive Committee.
    Mr. White is responsible for the delivery component of energy 
management services, which include commodity management; purchasing, 
maintaining, and operating energy assets; developing and implementing 
energy information services; capital management; and facilities 
management. Enron is one of the world's leading electricity, natural 
gas, and communications companies. With revenues of $101 billion in 
2000, Enron markets electricity and natural gas, delivers physical 
commodities, and financial and risk management services to customers 
around the world. Fortune magazine has named Enron ``America's Most 
Innovative Company'' for 6 consecutive years.
    Mr. White joined Enron Corp. in 1990 as Vice President of 
Operations for Enron Power Corp., a subsidiary of Enron, after a 23-
year career in the United States Army. In 1991 he was named Chairman 
and CEO of Enron Power Corp. During his tenure, Enron Power Corp. 
completed the world's largest natural gas fired co-generation plant at 
Teesside in the United Kingdom in 1993.
    From 1993 to 1998, Mr. White was Chairman and CEO of Enron 
Operations Corp. Mr. White's duties included the operation of some 
44,000 miles of natural gas pipelines, including the largest integrated 
system in the United States. In addition, he had management 
responsibility for the operation of 26 plants, including 18 in the 
United States and 8 in foreign countries stretching from Argentina to 
the Philippines. Mr. White also was responsible for Enron Engineering 
and Construction Company, which managed an extensive construction 
portfolio with domestic and international projects.
    Mr. White retired as a Brigadier General from the United States 
Army in July 1990. Highlights of his military service include:

        <bullet> Two years of service in combat operations in Vietnam.
        <bullet> Extensive command experience, culminating in command 
        of the 11th Armored Cavalry Regiment of V Corps in U.S. Army 
        Europe, which included responsibility for 6,000 soldiers, 
        10,000 family members, and four different major installations.
        <bullet> High-level staff assignments included service on 
        several special task forces chartered by the Chief of Staff of 
        the United States Army. Those task forces addressed critical 
        defense issues including development of the M1 Abrams Tank, 
        formulation of operational doctrine for large units, and the 
        development of an Armor/Anti-Armor program budgeted at $2 
        billion per year.
        <bullet> Served as Executive Assistant to the Chairman of the 
        Joint Chiefs of Staff.
        <bullet> Military decorations and awards include the 
        Distinguished Service Medal, Silver Star, and Legion of Merit 
        (with 3 Oak Leaf Clusters).

    Mr. White holds a bachelor's degree in engineering from the United 
States Military Academy and a master's degree in operations research 
from the Naval Post Graduate School in Monterey, California.
    Mr. White has been married to his wife Susan for 31 years. They 
have two sons and a daughter. Mr. White was born in Detroit, Michigan, 
on December 14, 1943.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Thomas E. 
White, Jr., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas Eugene White, Jr.

    2. Position to which nominated:
    Secretary of the Army.

    3. Date of nomination:
    May 1, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 14, 1943; Detroit, Michigan.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Susan Elizabeth Adams White.

    7. Names and ages of children:
    Thomas E. White III, 30; Charles F. White, 26; Kathleen H. White, 
24.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    High School: Cass Technical High School, Detroit, Michigan, 1957-
1961; graduated with diploma, June 1961.
    College: Wayne State University, Detroit, Michigan, 1961-1963; No 
degree.
    United States Military Academy, West Point, NY, 1963-1967; BS/
Engineering, June 1967.
    Graduate: United States Naval Postgraduate School, Monterey, CA, 
1973-1974; MS/Operations Research 1974.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    March 1991-June 1993--Chairman/CEO Enron Power Corp., Houston, TX.
    June 1993-Dec. 1996--Chairman/CEO Enron Operations Corp., Houston, 
TX.
    Jan. 1997-Apr. 1998--Chairman/CEO Enron Ventures Corp., Houston, 
TX.
    Apr. 1998-present--Vice Chairman/CEO Enron Energy Services, 
Houston, TX.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Enron Energy Services and other Enron subsidiaries--Vice Chairman, 
Officer, Director.
    Catalytica Energy Systems, Inc.--Director.
    Greater Houston Area Chapter American Red Cross--Vice Chairman.
    T.E. White Family Limited Partnership--General Partner.
    DLJ Private Equity Partners Fund II--Limited Partner.
    WSW 1996 Exchange Fund, LP--Limited Partner.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Jewish-Institute for National Security Affairs--Member.
    Business Executives for National Security--Member.
    Greater Houston Area Chapter American Red Cross--Vice Chairman.
    Association of the United States Army--Member.
    Blackhorse Association--Member.
    11th Armored Cavalry Regiment Veterans of Vietnam and Cambodia--
Member.
    Association of Graduates United States Military Academy--Member.
    Woodlands, Texas Country Club--Member.
    Naples National Golf Club, Naples, FL--Member.
    Maroon Creek Country Club, Aspen, CO--Member.
    Aspen Mountain Club, Aspen, CO--Member.
    Caribou Club, Aspen, CO--Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member--Republican Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    1996--Enron Political Action Committee--$1,800
    1996--Bob Dole for President Campaign--$2,000
    1997--Enron Political Action Committee--$1,800
    1998--Enron Political Action Committee--$1,800
    1999--Enron Political Action Committee--$2,000
    2000--George W. Bush for President Campaign--$2,000
    2000--Enron Political Action Committee--$2,000

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Military Medals (Army)
    Army Distingnished Service Medal
    Grand Merit Cross of the Federal Republic of Germany
    Silver Star
    Legon of Merit (4)
    Distinguished Flying Cross
    Bronze Star w/``V'' Device (4)
    Meritorious Service Medal
    Air Medals w/``V'' Device
    Army Commendation Medal w/``V'' Device (3)
    Army Achievement Medal

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Thomas E. White, Jr.
    This 21st day of March, 2001.

    [The nomination of Thomas E. White, Jr., was reported to 
the Senate by Senator John Warner on May 21, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2001.]
                              ----------                              

    [Prepared questions submitted to Gordon R. England by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                       May 9, 2001.
The Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                 Gordon R. England.
cc: The Hon. Carl Levin
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. I am committed to the complete and effective implementation 
of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been accepted and implemented 
and that they have clarified the responsibilities and authorities of 
the Secretary of Defense, the secretaries of the military departments, 
the Joint Chiefs of Staff, and the Chairman of the Joint Chiefs. The 
effectiveness of our joint warfighting forces has improved as a result 
of these reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. In my view, the most significant value of these reforms has 
been to strengthen joint warfighting. Our military is stronger and more 
lethal because our services can work better together. If confirmed, I 
will maintain and extend the Navy's commitment to the principles of 
joint warfare including interoperability and joint doctrine.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
                                 duties
    Question. Section 5013 of Title 10, United States Code, describes 
the duties of the Secretary of the Navy.
    Assuming you are confirmed, do you expect that Secretary Rumsfeld 
will prescribe additional duties for you?
    Answer. The Secretary's Management Committee consisting of the 
Deputy Secretary of Defense, three service secretaries, and Under 
Secretary of Defense for Acquisition, Technology, and Logistics has 
been discussed as an operating model for the Department of Defense. If 
implemented by the Secretary of Defense, this would constitute new 
assignment for the service secretaries. As of this point in time, I am 
not aware of any other additional duties.
    Question. If so, what do you expect those additional duties will 
be?
    Answer. I am not aware of any such additional duties, except for 
the Secretary's Management Committee.
    Question. What duties and responsibilities do you plan to assign to 
the Under Secretary of the Navy?
    Answer. The Under Secretary of the Navy is to keep the Department 
on track and focused on the stated top priorities, keeping me informed 
of any impediments to success. I expect the Under Secretary of the Navy 
to monitor and maintain the priorities I have set for the Department 
and take the lead on any item in need of special attention.
    Question. In carrying out your duties, how will you work with the 
Assistant Secretary of the Navy for Manpower and Reserve Affairs; the 
Assistant Secretary of the Navy for Installations and Environment; the 
Assistant Secretary of the Navy for Financial Management and 
Comptroller of the Navy; the Assistant Secretary of the Navy for 
Research, Development, and Acquisition; and the General Counsel?
    Answer. If confirmed, I intend to work closely and directly with 
the Assistant Secretaries of the Navy and the General Counsel to ensure 
the Department maintains a clear focus on the priorities set forth by 
the Secretary of Defense and myself consistent with the appropriate 
laws and Title 10 of the U.S. Code. My plan is to encourage teamwork 
within the Department of the Navy; therefore we will have a number of 
integrated product teams, both within civilian leadership and between 
civilian leadership and their military counterparts.
                         science and technology
    Question. The Strom Thurmond National Defense Authorization Act for 
Fiscal Year 1999 established the goal of increasing the budget for the 
Defense Science and Technology program by at least 2 percent over 
inflation for each of the fiscal years 2000 to 2008. This goal was not 
met in the fiscal year 2000 nor in the fiscal year 2001 budget 
requests. In President-Elect Bush's speech at the Citadel he spoke of 
his support for a strong and stable technology base.
    Do you believe that a substantial increase in the Department's S&T 
budget is needed?
    Answer. Science and technology is important. If confirmed, I will 
review to ensure the Department and nation's needs are met.
    Question. The defense laboratories are facing a future of continued 
reductions in research and support personnel. This trend, if unchecked, 
could result in a loss of ``critical mass'' in research efforts across 
a number of areas critical to future programs. This situation is 
further complicated by the fact that in the current economy, the 
Department is vying with industry for the best and the brightest high 
tech personnel, but is unable to compete on salary and quality of work. 
Finally, the process for hiring can take up to 18 months as opposed to 
direct hiring in industry.
    If confirmed, how would you intend to attract and retain scientists 
and engineers for your laboratories?
    Answer. This is a matter that requires my review and attention.
    Question. Congress has authorized the Department to give laboratory 
directors direct hiring authority to enable them to compete for 
scientific and engineering talent. To date, the Department has been 
reluctant to use this authority.
    Do you support giving the Department's laboratory directors the 
authority to make direct hires without having to go through an 18-month 
review process?
    Answer. The Department is in the process of developing a waiver 
process to implement the authority for direct hiring that Congress 
provided under Section 245 of the Fiscal Year 2000 Defense 
Authorization Act. I support this authority and believe it will improve 
the workforce and the efficiency of DOD laboratories. At the same time, 
we need to examine the total laboratory structure within the DON, DOD, 
and DOE to maximize efficiency and effectiveness of these resources.
                           acquisition reform
    Question. Secretary Rumsfeld testified at his confirmation hearing 
that the cycle time for major acquisition programs conducted over the 
past several decades averages between 8 and 9 years. Others have stated 
that the cycle time may be as long as 15 to 20 years. The Secretary 
stated that this cycle time is not sufficiently responsive to urgent 
new challenges and rapidly emerging technological developments.
    What are your thoughts on specific steps that can be taken to 
reduce the cycle time for major acquisition programs?
    Answer. I would implement ``spiral acquisition.'' By doing so, we 
can employ technology faster, at less risk, and less cost than current 
acquisition approaches.
    Question. Do you see a need for any changes to the existing 
acquisition structure and/or acquisition chain of command?
    Answer. Based on the long timelines and costs of current 
acquisitions, it would certainly appear that changes to the current 
acquisition structure may be necessary. If confirmed, I will become 
familiar with the current acquisition structure and the chain of 
command, and propose changes if appropriate.
                         acquisition workforce
    Question. There has been considerable pressure to reduce 
acquisition organizations on the basis of absolute numbers. DOD has 
reduced its acquisition workforce approximately 50 percent, from the 
end of fiscal year 1990 to the end of fiscal year 1999, while the 
workload has remained essentially constant, and even increased by some 
measures.
    Are you concerned that reductions to the acquisition workforce will 
have a negative effect on program management, and if so, how do you 
plan to address this problem?
    Answer. Perhaps. While on the surface this appears to be a growing 
problem, this may not be as severe if we modify our acquisition 
processes. This subject will be examined as acquisition reforms are 
implemented in DOD.
    Question. As the DOD continues to emphasize contracting out and 
competitive sourcing, the skills, training, and experience of the 
acquisition workforce will be critical in effectively managing these 
contracts. In addition, the Department's Acquisition Workforce 2005 
Task Force has reported that DOD will be faced with a significant 
demographic challenge as 50 percent of the remaining acquisition 
workforce will be eligible to retire in the next 5 years.
    Do you believe the current acquisition workforce has the quality 
and training to not only adapt to new acquisition reforms, but to the 
increased workload and responsibility from managing privatization 
efforts?
    Answer. While the current acquisition workforce is made up of high 
quality and well-trained personnel, the Department will need to 
continue to examine needs in this area. If confirmed, I will seek to 
increase the emphasis on creating a continuous learning environment for 
the acquisition workforce, to seek out and introduce best commercial 
practices, and to streamline our recruiting and hiring practices in 
order to be competitive with industry in attracting new talent.
                               readiness
    Question. Over the last few years we have seen increasing evidence 
that the readiness of the U.S. armed forces has begun to deteriorate as 
a result of the over-commitment of an under-resourced military. The 
Joint Chiefs have testified that the military services will require a 
$48 to $58 billion funding increase if the Department is to restore 
readiness and modernize for the future. The former Secretary of the Air 
Force recently stated that an increase of $100 billion would be 
required each year.
    What do you view as the major readiness challenges that will have 
to be addressed and, if confirmed, how will you approach these issues?
    Answer. If confirmed, the priority of this office will be to 
increase the combat capability which includes readiness of the Navy and 
Marine Corps and the interoperability of this capability with the other 
services and allies. I will work with the Chief of Naval Operations and 
Commandant of the Marine Corps to understand their perspective and 
efforts in providing sailors and marines with the tools necessary to 
accomplish their mission.
                 cinc-identified readiness deficiencies
    Question. The latest Quarterly Readiness Report to Congress 
identified numerous CINC-identified readiness-related deficiencies. 
Many of these are listed as Category I deficiencies which entail 
significant warfighting risk to execution of the national military 
strategy. Most of the specific deficiencies have been reported for the 
past several years and have not as yet been effectively addressed.
    If confirmed, what actions will you take to ensure that the Navy 
provides the necessary resources to address these CINC-identified 
readiness deficiencies?
    Answer. Navy has worked to mitigate CINC readiness deficiencies. If 
confirmed, I would continue that effort.
                              environment
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include environmental constraints on 
military training ranges, local community efforts to obtain military 
property, airspace restrictions to accommodate civilian airlines, 
transfer of radio frequency spectrum from the Department of Defense to 
the wireless communications industry, and many others. Unless these 
issues are effectively addressed, our military forces will find it 
increasingly difficult to train and operate at home and abroad.
    In your opinion, how serious are these problems for the Navy?
    Answer. Encroachment is a problem that grows more serious each day. 
The commanders have been trying to accommodate encroachment pressures 
by altering their training plans and procedures. While many of these 
individual accommodations may not appear serious, the cumulative effect 
could diminish readiness in the form of a fighting force less prepared 
than it should be. The effects of encroachment are most often seen as 
decreased days for training, restrictions on the location and timing 
for training, and limitations on the types of training.
    Question. If confirmed, what actions will you propose to ensure 
that these issues do not prevent your service from effectively training 
and operating both at home and abroad?
    Answer. The Department of Defense and the military services are 
working with other federal agencies to identify and resolve as many 
encroachment issues as possible. If confirmed, I will continue this 
effort.
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action, and those that 
will be out of compliance before the next budget cycle.
    Would you agree that continuing funding for this type of 
environmental cleanup is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. Yes, in many respects, the Department of the Navy is just 
like any other big business and must give priority to complying with 
environmental legal requirements. It is vital that the Navy and Marine 
Corps comply with environmental protection requirements and budget 
appropriately. If confirmed, I also will look for opportunities to be 
proactive rather than reactive. For example, achieving compliance 
through pollution prevention is the preferred method of business.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of the environmental laws?
    Answer. In general, no. Most of the activities of the Navy and 
Marine Corps, particularly those associated with operating 
installations, can and must comply with environmental laws like the 
private sector. However, application of some environmental laws and 
regulations to militarily unique training actions should be examined 
and may require some regulatory accommodations to ensure national 
security.
    Question. Do you support the basic principle of the Federal 
Facilities Act and other laws that federal facilities, including DOD 
facilities, should be subject to the same standards as comparably 
situated civilian facilities?
    Answer. In general, I support the principle that DOD facilities 
should be subject to the same standards as comparably situated civilian 
facilities. However, there are circumstances where environmental 
regulations must be tailored to accommodate the unique military mission 
or special circumstances related to military training while still 
protecting the environment. A good example is the Military Munitions 
Rule whereby excess military munitions were recognized as a special 
type of waste that should not be regulated like civilian wastes under 
the Resource Conservation and Recovery Act.
    Question. The Department of Defense faces a bill for the clean-up 
of unexploded ordnance (UXO) that is at least in the tens of billions 
of dollars, and could well be in the hundreds of billions of dollars. 
At current funding levels, it has been estimated that it would take the 
military services several thousand years to remediate UXO problems on a 
DOD-wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    Answer. If confirmed, I will work with the other services and the 
Secretary of Defense, in consultation with Congress, to solve this 
critical question.
    Question. Do you believe that increased investment in UXO 
remediation technologies would be likely to produce more effective and 
efficient remediation processes and substantially reduce the 
Department's long-term clean-up liability (and the time required to 
complete such clean-up)?
    Answer. If confirmed, I welcome the opportunity to look into this 
difficult and critical issue as well.
    Question. How would you address the prospect of reducing the cost 
to the Department of environmental compliance?
    Answer. As private industry and the Department of Defense have 
found, the preferred method for cost reduction is through pollution 
prevention. If confirmed, I will examine various ways to ensure 
environmental compliance while reducing costs.
    Question. Maritime resource protection laws, executive orders, and 
interpretations of Federal and State environmental regulations have 
affected the conduct of maritime operations, and Navy test and training 
activities.
    If confirmed as Secretary of the Navy, what measures would you take 
to preserve fleet operations and training exercises under the current 
regulatory and statutory framework?
    Answer. I am not yet familiar with the various laws and regulations 
involving environmental compliance. If confirmed, I will acquaint 
myself with these laws and take action as appropriate.
                                vieques
    Question. Over the past 2 years, naval forces deploying from the 
East Coast of the United States have been prevented from conducting 
live-fire training on the Navy's training range on Vieques, Puerto 
Rico, which has had a degraded impact on the readiness of these forces 
to execute their wartime missions. An agreement was reached in 2000, 
and legislation passed to implement that agreement, that provided for 
the return of the western portion of the island, economic aid, and a 
restoration of live-fire training. Unfortunately, the current Governor 
of Puerto Rico does not appear to be abiding by the terms of this 
agreement and has stated that she wants the Navy to cease operations 
immediately.
    Do you agree with the Chief of Naval Operations and the Commandant 
of the Marine Corps that Vieques is essential to the readiness of East 
Coast naval forces?
    Answer. Yes. The Island of Vieques provides an unequalled 
environment for training and evaluation of Navy and Marine Corps 
personnel and equipment in land, sea, air, and amphibious warfare. This 
combined arms training and evaluation is an essential step in attaining 
sufficient pre-deployment levels of readiness.
    Question. If confirmed, what actions would you take to ensure that 
the Navy and Marine Corps receive necessary live-fire training on 
Vieques?
    Answer. Under the terms of the Fiscal Year 2001 National Defense 
Authorization Act, the Department of the Navy will only resume live-
fire training on Vieques if a majority of the registered voters in 
Vieques endorse our continued use of the range at a referendum 
scheduled for 6 November 2001. Until then, I support the continued 
training at Vieques with non-explosive ordnance in accordance with the 
Act and the agreement reached in January 2000 between the President and 
the Governor of Puerto Rico.
    Question. Do you support the agreement the Navy reached with 
Governor Rossello regarding Vieques?
    Answer. It is my understanding the Navy supports the agreement. I 
personally have not had sufficient briefings to have a position.
    Question. If confirmed, do you intend to continue to comply with 
that agreement or will you seek to negotiate a new agreement or pursue 
a different course of action?
    Answer. If confirmed, resolution of this issue will be a high 
priority. I will obtain additional information in order to understand 
all aspects of this situation.
                  outsourcing of commercial activities
    Question. Over the past several years the Department of Defense has 
increased its reliance upon the private sector to perform certain 
activities including equipment maintenance and facility operations. 
Some have supported this effort, believing that outsourcing will yield 
significant savings that can be used to modernize the military.
    Do you believe that the military services need to retain a core 
capability to perform certain activities such as equipment maintenance, 
and what approach would you take to allocate workloads between the 
public and private sector?
    Answer. If confirmed, I will strive to ensure that military core 
capabilities are retained, as necessary, to achieve the proper balance 
between public and private sector support.
    Question. Do you believe that outsourcing can yield substantial 
savings for the Department of Defense?
    Answer. If confirmed, I will work with my staff and welcome the 
opportunity to work with this committee to evaluate the effectiveness 
of this outsourcing.
    Question. Do you agree that public-private competition is an 
essential precursor to any outsourcing effort in the Department of 
Defense?
    Answer. If confirmed, I welcome the opportunity to work with my 
staff and the committee to evaluate the issue of public-private 
competition and whether it generates significantly greater savings.
      commercial vs. military requirements for frequency spectrum
    Question. The Federal Government is currently conducting a series 
of studies to determine a band of frequencies that can be used for the 
operation of third generation wireless communications devices. As a 
part of this overall effort, the Department of Defense is conducting a 
study to determine the cost and operational impact that would result if 
the military services were to surrender the use of the 1755-1850 MHz 
band of frequencies on which they currently operate their equipment. As 
the Department of Defense's information requirements increase with the 
advances taking place in weapon system technology, the Department's 
requirements for frequency access will also increase. However, the 
commercial sector is also experiencing increased requirements for 
frequency spectrum to meet the demands of the American consumers. 
Spectrum is a finite resource and we have to ensure it is utilized in 
the most efficient and beneficial manner possible.
    If confirmed, what actions would you take to review your service's 
total spectrum requirements and ensure that new systems are designed to 
ensure efficient spectrum utilization by the Department of Defense?
    Answer. It is evident that the military does have bona fide 
requirements for spectrum utilization. Without unique military 
bandwidth, the whole effort for integrated command, control, and 
intelligence across the services will be jeopardized. If confirmed, I 
will work with the other services and DOD to address this issues.
    Question. If confirmed, what actions would you take if the study 
currently being conducted within the Department of Defense determines 
that there will be a significant cost and operational impact if the 
military services surrender the 1755-1850 MHz band of frequencies?
    Answer. If confirmed, I will need to be thoroughly briefed on the 
study to fully appreciate its findings.
                      base realignment and closure
    Question. Over the past several years, various departmental 
officials have testified that there is excess defense infrastructure 
and have requested Congress to authorize another round of base closure.
    Do you believe that we have excess defense facilities and, if so, 
where does this excess capacity exist?
    Answer. Any discussion of where there may be excess capacity must 
await the completion of the Secretary of Defense Strategic Review, 
which will identify a vision of how we must reshape the Department of 
Defense to best meet the threats of today and tomorrow to our Nation. 
Implementing this new defense vision will likely involve a shift in the 
focus and priorities of the military departments, including its 
supporting shore establishment.
                           service stovepipes
    Question. One of the principal criticisms of the Department of 
Defense is that the military services continue to pursue their 
individual systems--from logistics to data management--which increases 
costs and hinders interoperability. Although there have been efforts to 
remove these service stovepipes in the past, they continue to exist.
    If confirmed, what actions will you take to eliminate service 
unique systems where systems could be developed to serve all of the 
services?
    Answer. If confirmed, I will work with the other service 
secretaries to ensure a high degree of interoperability between our 
systems.
                        military family housing
    Question. In response to a continuing shortfall in funding for 
family housing construction and repair, the Department proposed the 
Military Housing Privatization Initiative as one part of their program 
to upgrade all military housing to standard by 2010. Although Congress 
enacted this authority in the National Defense Authorization Act for 
Fiscal Year 1996, the services have not made the anticipated progress 
in the privatization effort.
    What role, if any, do you believe military family housing has in 
recruiting and retention?
    Answer. Our sailors and marines need to know that their families 
are safely and comfortably housed while they are deployed and serving 
our Nation. As such, to the extent that we can improve the quality of 
life of our members, such improvements should contribute to overall 
satisfaction and, ultimately, positively affect recruiting and 
retention.
    Question. Do you support the goal for upgrading all military family 
housing in your service to established standards by 2010?
    Answer. Yes.
    Question. Would you support providing the necessary resources to 
achieve this goal?
    Answer. Yes
                             modernization
    Question. Do you believe that the Navy and the Marine Corps have 
been provided sufficient resources to maintain current readiness, 
recapitalize, and modernize to the level needed?
    Answer. I have not had an opportunity to review the resources, and, 
if confirmed, I will provide more firm input after I have had time to 
better understand the issues.
    Question. If not, what would be the effect of continuing current 
funding levels and what steps do you plan to take to avoid these 
problems?
    Answer. If confirmed, I will work closely within Department of the 
Navy, and with SECDEF staff and Congress, to better determine and fund 
current and future requirements. At the same time, I expect to improve 
the efficiency of business practices within DON to free up additional 
funds for modernization and maintenance.
              capabilities delivered at fleet introduction
    Question. The Navy's newest tactical aircraft, the F/A-18E/F, may 
be scheduled for its first deployment in advance of receiving some of 
the subsystems that were originally scheduled to be a part of the 
aircraft package.
    Do you believe that it is appropriate to send new systems to 
deploying forces, where the systems' capabilities fall short of what 
had been planned for delivery at the time of initial operational 
capability?
    Answer. Although not familiar with the specifics of the F/A-18E/F, 
the concept is consistent with a ``spiral development'' approach, where 
systems are deployed to the field that provide significant benefit over 
existing systems but continue to evolve to meet final operational 
capability.
                          joint strike fighter
    Question. The Navy's first stealthy, carrier-launched tactical 
aircraft will be the Joint Strike Fighter.
    Do you believe that the Navy will be able to afford this program on 
the current schedule in light of the many other needs for 
recapitalization?
    Answer. The naval service has a stated requirement for the Joint 
Strike Fighter. My understanding is that JSF research, development, 
test, and evaluation is fully funded throughout the FYDP, however, the 
outcome of this program may be influenced by the outcome of the 
Secretary of Defense strategic reviews.
                    marine corps enlisted retention
    Question. The retention of quality young privates and sergeants is 
important to the Marine Corps. This service has exceeded its retention 
goals so far this year.
    What will your direction be to the Marine Corps to ensure that this 
positive trend continues?
    Answer. If confirmed, I will encourage the Marine Corps to build 
upon success. Young marines thrive on challenge and a sense of 
adventure. Retaining quality marines is critical to the Corps' 
readiness. If confirmed, I will encourage the Marine Corps to pursue 
those quality of life issues and the challenging training regimen that 
has been so successful.
                         naval gun fire support
    Question. Do you concur with the Navy and Marine Corps operational 
requirement for the Navy to provide fire support from the sea to the 
Marine Corps, the Army, or other expeditionary forces?
    Answer. Yes, I do concur. From both the Navy and Marine Corps 
perspectives, Operational Maneuver From the Sea (OMFTS) concepts have 
placed an increasing emphasis on the need for capable Naval Surface 
Fire Support (NSFS) assets. I realize that sea-based NSFS will be 
required to support joint operations, and integrate with expeditionary 
forces (whether Marine, Army, or other) operating over an extended 
littoral battlespace.
               navy support of marine corps requirements
    Question. The Commandant of the Marine Corps and the Chief of Naval 
Operations sometimes have differing views on how to implement key 
operational concepts, such as logistics from the sea. For instance, the 
Commandant may want to minimize his footprint ashore, which would 
require additional ships. Concurrently, the CNO may be struggling to 
find the resources to operate and recapitalize the present force 
structure and may not have the resources to support the Commandant's 
path to operating in the future.
    How would you intend to arbitrate such differences of opinion 
between the Navy and the Marine Corps?
    Answer. I am of the opinion that the Navy and Marine Corps form a 
unique operational team, serving a vital role in the defense of the 
nation and our interests. If confirmed, I intend to have both the Chief 
of Naval Operations and the Commandant of the Marine Corps as partners 
with me in demonstrating that we are ``One team, one fight.'' I will 
encourage coordination and teamwork, ensuring that we work together at 
all levels.
                        protected communications
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes.
    Question. If confirmed, what actions would you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will be vigilant in ensuring that military 
members whose actions are protected by the Act are not subject to 
illegal reprisals or retaliation. I also understand that the current 
Department of the Navy practice is to brief the requirements of the Act 
to all prospective commanding officers and executive officers, and 
address the requirements of the Act in the curriculum of eight separate 
courses of instruction for Navy and Marine Corps personnel. If 
confirmed, I will ensure that this emphasis on the Act in formal Navy 
training courses will continue.
                        officer promotion system
    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest moral and ethical 
values. We are frequently asked to confirm the promotion of officers 
who have substantiated allegations of misconduct that have not been 
considered by the boards that selected these officers for promotion. At 
the same time, the services inform us that they have many highly 
qualified officers for each available general and flag officer billet.
    What steps will you take to ensure that only the most highly 
qualified officers are nominated for promotion to general and flag 
officer rank?
    Answer. The strength of our Navy rests on the moral and ethical 
foundation of its leaders. If confirmed, I will place great value and 
emphasis on integrity as I instruct selection boards in their duties.
    I will expect and require high integrity and true commitment to 
Navy core values of honor, courage, and commitment. While some errors 
in performance are experiences that can be learned from and contribute 
to the strength and growth of an officer, faults relating to lack of 
integrity will be of great concern and will be intensely scrutinized in 
determining if that officer is qualified for promotion.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    Based on your private sector experience, do you believe the 
Department of the Navy is investing enough in its infrastructure?
    Answer. I recognize that it has been a difficult challenge for the 
Department of the Navy to sufficiently invest in its infrastructure. My 
understanding is that independent studies have shown that the 
Department of the Navy's infrastructure investment is below industry 
levels. One approach to ensuring sufficient investment in 
infrastructure is to be sure that the Department has no excess 
infrastructure to be maintained.
    Question. How does the Navy's investment in its infrastructure 
compare to what you are used to in the private sector?
    Answer. The private sector depreciates its assets based on useful 
life. This would appear to be reasonable criteria for the Department of 
the Navy. As such, the investment account should equal the depreciation 
for each year unless more efficient processes are implemented.
    Question. What steps would you plan to take to address this issue?
    Answer. Upon completion of the strategic review, if confirmed, I 
will work with the Secretary of Defense to resource the required 
infrastructure to support the new national military strategy. The 
Department will need to apply commercial methods and industry practices 
to match facility requirements with our Navy and Marine Corps ``product 
lines'' and resource our infrastructure accordingly.
                    civilian control of the military
    Question. Press reports indicate that increasing civilian control 
of the military services will be a priority of this administration.
    What changes would you recommend to Secretary Rumsfeld to make in 
your duties and responsibilities or those of the Under Secretary or 
assistant secretaries in your department?
    Answer. None at this time.
    Question. Section 5014(c) of Title 10 requires that the Office of 
the Secretary of the Navy have sole responsibility for Acquisition, 
Auditing, Comptroller (including Financial Management), Information 
Management, Inspector General, Legislative Affairs, and Public Affairs.
    If confirmed, would you review each of these functional areas to 
ensure that the Navy is in compliance with the statutory requirement?
    Answer. Yes.
    Question. The services have traditionally had a uniformed flag rank 
officer rather than the Assistant Secretary for Financial Management 
supervise their budget office.
    Do you intend to follow this arrangement or do you plan to increase 
civilian control over your service's budget decisions?
    Answer. The Assistant Secretary of the Navy for Financial 
Management has the authority and responsibility for budget matters for 
the Department of the Navy.
    Question. The service secretaries have traditionally delegated 
management of readiness to the uniformed services.
    What role do you intend to play in readiness issues?
    Answer. I intend to play an active role, closely working with the 
naval services on this vitally important issue.
                           civilian workforce
    Question. What steps would you plan to take to bring new people 
with the desired skills into our civilian workforce as more and more of 
the current workforce is becoming retirement eligible?
    Answer. I believe renewal of the civilian workforce must be a 
primary objective if we are to meet future readiness requirements 
across the total force. If confirmed, I will support current 
initiatives to standardize and professionalize the recruitment efforts 
of Navy and Marine Corps commands; work with DOD on legislative and 
regulatory changes to streamline the employment and workforce 
restructuring processes; and support efforts to build strong career 
program alliances across the Department.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Secretary of the Navy?
    Answer. I believe that the greatest challenges currently facing the 
Department are:

        <bullet> Combat Capability--The primary purpose of the Navy and 
        Marine Corps is to deter, train for, and when necessary, fight 
        and win our Nation's battles and wars. To remain faithful to 
        this charge, combat capability, which includes readiness, must 
        be our primary emphasis. If necessary, resources will be 
        shifted to meet this objective.
        <bullet> People--Our most valuable resource. I will emphasize 
        ``quality of service''--achieving a quality workplace as well 
        as a quality of life for our sailors, marines, civilians, and 
        their families. Our thrust will be to create an environment of 
        excellence.
        <bullet> Technology and Interoperability--Application of 
        advanced technology is the foundation of our Nation's military 
        strength. Unfortunately, the application of technology has 
        almost always lagged the availability of technology, sometimes 
        by several generations.
        <bullet> Efficiency--Application of more effective management 
        techniques to systematically improve the efficiency of the 
        Department.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. My written statement to the committee includes my initial 
steps to address these challenges. If confirmed, these steps will be 
promptly initiated.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions submitted by Senator Strom Thurmond
    1. Senator Thurmond. According to the General Accounting Office, by 
1992 the military had accumulated an estimated $8.9 billion in deferred 
maintenance. By 1998 that had grown to $14.6 billion. It now exceeds 
$16.0 billion and is growing. Last year in his testimony before 
Congress, the GAO's Neil Curtain said, ``there really is a risk of 
losing the value of those (military) facilities. Real property 
maintenance is in disarray.''
    I would like your views on the priority you will be placing on 
installation readiness and eliminating this backlog in maintenance and 
repair.
    Mr. England. I agree with the recent DOD Inspector General 
assessment that the backlog of maintenance and repair is one of the top 
ten management challenges facing the Department of Defense. It is 
imperative that we fully sustain our facility inventory and halt the 
slide in installation readiness.

    2. Senator Thurmond. According to your biography, as a member of 
the Defense Science Board, you were a principal contributor to the 
section 912c Report to Congress with broad recommendations for defense 
reform.
    Based on that experience, what management reforms do you consider 
the most important to improve the operation of the Department of 
Defense?
    Mr. England. As noted in the Section 912c Report to Congress, there 
are significant cost and personnel savings to be realized through 
acquisition reform. Better integration of our research and development 
organizations with industry, and the use of innovative performance-
based contracting practices and outsourcing initiatives offer the 
potential for increased efficiencies in streamlining both cost burdens 
and workforce requirements. I believe that we may benefit from further 
review and use of these methods and processes in other areas of our 
operations, such as medical activities and personnel activities.

    3. Senator Thurmond. For a number of years, the prevailing ethic in 
the military has been that you better not make a mistake because a 
single error of any significance can blight your career. Your 
predecessor, Secretary Danzig, said that, ``this is really hurting us 
and we have to stop doing this.''
    How do you feel about the ``zero defect mentality?''
    Mr. England. The zero defect mentality not only is an impediment to 
the effective and accurate flow of communication to all levels of a 
command, it also perpetuates an atmosphere of micromanagement that is 
detrimental to retention. It is all too human to make mistakes as one 
develops in any profession. The leadership challenge is to be sure that 
individuals and commands learn from the mistake and take responsibility 
for their actions. It is important, however, to clearly distinguish 
between poor judgment or recklessness and an honest mistake. 
Accountability of persons in leadership positions for actions taken, or 
not taken, must be enforced and where necessary, disciplinary actions 
taken. Yet when honest mistakes or decisions with less than optimal 
information were made, the result need be examined in a non-emotional 
setting. This serves to not only clearly determine what happened and 
why, but also ultimately to educate others.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
    4. Senator Santorum. The Joint Strike Fighter is approaching a 
major decision point, with a source selection and entry into 
engineering and manufacturing development (EMD). Do you feel the 
program can receive the stable funding required for it to meet its 
goals in light of other programs competing for limited resources, e.g. 
F-22 in the case of the Air Force and FA-18E/F in the case of the Navy?
    Mr. England. The Secretary of Defense is currently conducting a 
comprehensive strategic review of the Department's near- and long-term 
requirements. The results from that review will be incorporated into 
the Quadrennial Defense Review to provide the appropriate 
prioritization of our programs to meet those requirements. The 
allocation of Department resources will be based on that 
prioritization.

    5. Senator Santorum. A constituent company, Erie Forge & Steel, 
Inc., plays an important role in producing propeller shafts for the 
U.S. Navy. Figures provided by the Navy note that Erie Forge & Steel 
delivered approximately 80 percent of the finished propulsion shafts 
used by the Navy. Erie Forge and Steel is one of only two manufacturers 
in the United States capable of totally manufacturing (cradle to grave) 
shafts for Trident submarines.
    The Navy notes that while some contractors can produce rough 
forging and others can perform the machining, only Erie Forge & Steel, 
on the east coast, and Jorgensen Forge, on the west coast, are capable 
of performing the total work package. The Navy notes that the most 
critical process for shaft section production is the finish machining 
process, which accounts for 60 percent of the work required to 
manufacture a shaft section.
    Regrettably, Erie Forge & Steel is not immune from the dislocation 
and economic pressures that are impacting our domestic steel producing 
industry. Erie Forge & Steel has applied for a loan as part of the 
Emergency Steel Loan Guarantee Act of 1999, in response to unfair 
dumping of foreign steel. Clearly, it would not be in the best national 
security interests of this country if the Navy were to lose the 
capabilities provided by Erie Forge & Steel.
    Do I have your assurance that you will look into the situation that 
is impacting Erie Forge & Steel and report back to me on how the Navy 
might work with the company to get through this period of financial 
difficulty?
    Mr. England. The Navy will be conducting an in-depth analysis this 
year regarding the capacities and capabilities of Erie Forge, Lehigh 
Heavy Forge, Jorgensen, and other companies to gain a better 
understanding of the impact on the industrial base due to the possible 
loss of Erie Forge & Steel capacity for Navy propulsion shafting. The 
Navy's findings will be forwarded to you as they become available.

    6. Senator Santorum. A new Pentagon report to Congress on the state 
of the U.S. naval ship propeller industry says that while the U.S. 
Navy's future requirement for ship propellers could be met by a 
government-owned foundry, not enough Navy work would remain to support 
the private-sector industrial base.
    Naval shipbuilding projections confirm the government cannot 
provide enough work to sustain the two U.S. facilities capable of 
casting large ship and submarine propellers, indicating the domestic 
propeller industrial base is too fragile to risk losing Navy 
procurement dollars to overseas competitors.
    The report defines the U.S. ship propeller industrial base as 
comprised of two firms: the Naval Foundry and Propeller Center, 
Philadelphia, a Navy-owned facility capable of meeting the Navy 
propeller requirement during the next 6 years; and Rolls-Royce Naval 
Marine Inc., Walpole, Massachusetts, which has a foundry in Pascagoula, 
Mississippi.
    Do you agree with me that the Naval Foundry and Propeller Center at 
Philadelphia is a national asset? What steps or actions do you believe 
must be taken by the Navy to ensure the viability of our American ship 
propeller industrial base, particularly the Naval Foundry and Propeller 
Center in Philadelphia?
    Mr. England. Naval Foundry and Propeller Center is an important 
asset to the Navy's shipbuilding program. The Navy can continue to 
direct sufficient work to the Center to maintain their minimum 
sustaining rate. Although they are primarily a submarine propulsor 
manufacturer, the Navy is prepared to direct surface ship work to the 
Center as done with AOE 6 propellers in the early 1990s. The viability 
of the American ship propeller base is primarily affected by ship 
construction build rates. An increased build rate will provide 
stabilizing influences on the propeller industrial base.
                                 ______
                                 
               Question Submitted by Senator Wayne Allard
    7. Senator Allard. Secretary Rumsfeld announced his recommendations 
regarding our military space organization as encouraged by the Space 
and NRO Commissions. Please comment on the Secretary's recommendations 
specifically as it relates to your service.
    Mr. England. The Department of the Navy concurs with the Space 
Commission conclusions and Secretary Rumsfeld's recommendations. We 
look forward to continuing our active role in implementing those 
recommendations to better enable joint land, air, and maritime 
warfighting use of space and space assets. The Navy, like our sister 
services, relies heavily upon the use of space for combat operations. 
Naval combat operations are critically dependent upon space for precise 
navigation; satellite communications; time critical intelligence, 
surveillance and reconnaissance, targeting and weaponeering; and 
meteorology and oceanography. Therefore, for the naval service, the 
final measure of the new national security space organization's worth 
will be its ability to balance and fulfill our warfighting requirements 
properly.
    We intend to work closely with all of the stakeholders and the 
Office of the Secretary of Defense to clearly define the new 
organization's policy, requirements, and acquisition processes. We see 
significant opportunities in this new organization to improve the use 
of space and space assets. We are fully committed and ready to 
participate by providing the necessary Navy and Marine Corps expertise.
                                 ______
                                 
              Question Submitted by Senator Jeff Sessions
    8. Senator Sessions. Secretary Rumsfeld has indicated that he is 
interested in using advanced technologies (already on the shelf) to 
dramatically increase the capability and performance of existing 
weapons systems like Harpoon.
    It is my understanding that the Navy has supported the development 
of a Harpoon upgrade for export. It seems to me that this kind of 
technology upgrade might make sense for the Navy. Do you have any views 
on this matter? If not, would you look into this matter, and then get 
back to me?
    Mr. England. The Navy entered into an innovative cooperative 
agreement with Boeing to oversee and support development and test of 
the Harpoon upgrades. Foreign military sales of the Harpoon upgrades 
will commence this year. The decision to retrofit U.S. Navy Harpoon 
systems with these upgrades will be contingent upon prioritized 
operational requirements and availability of resources to meet those 
priorities.
                                 ______
                                 
    [The nomination reference of Gordon R. England follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Gordon R. England, of Texas, to be Secretary of the Navy, vice 
Richard Danzig.
                                 ______
                                 
    [The biographical sketch of Gordon R. England, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Gordon R. England

    Mr. England served as Executive Vice President of General Dynamics 
Corporation from 1997 until 2001 and was responsible for two major 
sectors of the corporation: Information Systems and International. 
Previously he had served as Executive Vice President of the Combat 
Systems Group, President of General Dynamics Fort Worth Aircraft 
Company and before that he served as President of General Dynamics Land 
Systems Company producing land combat vehicles.  
    Mr. England began his career with Honeywell Corporation working as 
an engineer on the Gemini space program before joining General Dynamics 
in 1966 as an avionics design engineer in the Fort Worth aircraft 
division. He also worked as a program manager with Litton Industries on 
the Navy's E-2C Hawkeye aircraft. 
    Following various engineering and management positions with GD Fort 
Worth, Mr. England became President of GD Land Systems company. Shortly 
afterwards he returned to Fort Worth as President of that division and 
as Executive Vice President of the corporation in 1991. He served in 
these roles until 1993 when Lockheed Martin purchased the Fort Worth 
division, after which he continued to serve as President of Lockheed's 
aircraft company from 1993 to 1995.
    Mr. England established a mergers and acquisitions consulting firm 
following his retirement from Lockheed Martin in 1995 and operated that 
business until his selection as Executive Vice President of General 
Dynamics in 1997.
    A native of Baltimore, he graduated from the University of Maryland 
in 1961 with a bachelor's degree in electrical engineering. In 1975 he 
earned a master's degree in business administration from the M.J. 
Neeley School of Business at Texas Christian University. He is a member 
of the following honorary societies: Beta Gamma Sigma (business), 
Omicron Delta Kappa (leadership), and Eta Kappa Nu (Engineering).
    Mr. England has served as a member of the Defense Science Board and 
as Vice Chairman of the National Research Council Committee on the 
Future of the U.S. Aerospace Industry. He has also been actively 
involved in a variety of civic and charitable organizations, including 
Goodwill International where he served as Vice Chairman of the Board of 
Directors, the USO's board of governors, and as a member of the board 
of visitors at TCU and other universities.
    He has received numerous professional and service awards from many 
organizations, including the Boy Scouts of America, National Defense 
Industrial Association, and the National Management Association. He was 
selected as an IEEE Centennial awardee and is a member of the Aviation 
Heritage Hall of Fame.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gordon R. 
England in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gordon Richard England.

    2. Position to which nominated:
    Secretary of the Navy.

    3. Date of nomination:
    May 1, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 15, 1937; Baltimore, Maryland.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Dorothy Hennlein England.

    7. Names and ages of children:
    Gordon England, Jr., 38; Margaret K. Rankin, 35; Marisa C. Walpert, 
28.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Mount St. Joseph High School, Baltimore, Maryland, Diploma--June 
1955.
    University of Maryland, College Park, Maryland, BSEE (Electrical 
Engineering)--June 1961.
    Texas Christian University, Fort Worth, Texas, MBA--May 1975.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Vice President, R&D, General Dynamics Land Systems, Sterling 
Heights, Michigan, July 1986 to December 1990.
    President and General Manager, General Dynamics Land Systems, 
Sterling Heights, Michigan, January 1991 to July 1991.
    President and General Manager, General Dynamics Fort Worth Company, 
July 1991 to March 1993.
    President, Lockheed Fort Worth Company, March 1993 to March 1995.
    Self employed, GRE Consultants, Inc., Fort Worth, Texas, March 1995 
to March 1997.
    Executive Vice President, General Dynamics Corporation, Falls 
Church, Virginia, March 1997 to March 2001.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Benbrook Texas City Council and mayor pro tem, 1982-1986, no party 
affiliation.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    General Dynamics Corporation, Officer & Executive Vice President.
    GMM Investments, Ltd. (family partnership), General Partner.
    Boeing Company, Consultant.
    Texas Christian University, Member of Board of Visitors, Neeley 
School of Business.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    United Service Organization (USO), Member of Board.
    National Defense Industrial Association, Member of Board.
    Goodwill Industries of Fort Worth, Member of Board.
    National Research Council, Vice Chairman of Study on the Future of 
U.S. Aerospace Infrastructure.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
GD PAC contributions (withheld from paycheck)
    1997--$2,600
    1998--$2,600
    1999--$2,600
    2000--$2,600
    2001--$1,000

Personal Contributions
    2000--Johnson for Congress 2000--$1,000
    2000--Texas Freedom Fund--$1,000
    2000--Friends of Max Cleland--$1,000
    2000--Tiahrt for Congress--$1,000
    2000--Re-election Campaign of Cong. Chet Edwards--$1,000
    2000--Common Sense, Common Solutions PAC--$500
    2000--Lazio 2000--$2,000
    2000--RNC Victory 2000--$2,000
    2000--Texas Freedom Fund PAC, Inc.--$1,000
    2000--Kay Granger Campaign Fund--$1,000
    2000--Kay Granger Campaign Fund--$1,000 (by Dorothy H. England)
    1999--Texas Freedom Pac--$1,000
    1999--Murtha for Congress--$1,000
    1999--Kay Granger for Congress--$1,000
    1999--Joe Barton for Congress--$1,000
    1999--Kay Granger Campaign Fund--$500
    1999--Re-election Campaign of Cong. Todd Tiahrt--$1,000
    1998--Snowe for U.S. Senate--$1,000
    1998--Leahy for U.S. Senate--$1,000
    1998--Carol Keaton Rylander Campaign (Texas)--$500
    1998--Leahy for U.S. Senate--$1,000
    1998--Governor Bush Committee--$500
    1998--Murtha for Congress--$500
    1998--6th District Republican Association--$1,000
    1998--National Republic Congressional Committee Operation 
Breakout--$10,000
    1997--Shelby for U.S. Senate--$1,000
    1997--Kennedy for U.S. Senate--$500
    1997--Governor Bush Committee--$1,000
    1997--Joe Barton for Congress--$2,000
    1997--Kay Granger for Congress--$2,000
    1997--Kay Granger Campaign--$2,000
    1996--Friends of Ed Harrison--$1,000
    1996--Re-Elect Sheriff Williams--$250
    1996--RNC--Victory 1996--$1,000
    1996--Republican National Committee--$1,000
    1996--Gramm 1996 Senate Re-Election Campaign--$1,000
    1996--Kay Bailey Hutchison for Senate Committee--$4,000
    1996--Norman Robbins for School Board--$500
    1996--Kay Granger for Congress--$1,000
    1996--Campaign to Elect Elaine Klos--$100
    1996--Democratic National Party--$500
    1996--Kay Granger for Congress--$1,000
    1996--Wendy Davis for City Council--$500
    1996--Norman Robbins for School Board--$500
    1996--Joe Barton for Congress--$1,000
    1996--Joe Barton for Congress--$1,000
    1996--David Williams for Sheriff--$250

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Silver Knight of Management Award, National Management Association.
    Silver Beaver Award, Boy Scouts of America.
    Silver Award, National Defense Industrial Association.
    Selected to Aviation Heritage Hall of Fame.
    Institute of Electrical and Electronics Engineering Centennial 
Awardee.
    Member, Beta Gamma Sigma (business).
    Member, Omicron Delta Kappa (leadership).
    Member, Eta Kappa Nu (engineering).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Gordon R. England.
    This 30th day of April, 2001.

    [The nomination of Gordon R. England was reported to the 
Senate by Senator John Warner on May 21, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 22, 2001.]
                              ----------                              

    [Prepared questions submitted to Dr. James G. Roche by 
Chairman Warner prior to hearing with answers supplied follow:]

                                                       May 9, 2001.
The Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                    James G. Roche.
cc: The Hon. Carl Levin
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    What is your view of the extent to which these defense reforms have 
been implemented?
    What do you consider to be the most important aspects of these 
defense reforms?
    The goals of Congress in enacting these defense reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support full implementation of the Goldwater-Nichols 
reforms and agree with its goals. The enactment of Goldwater-Nichols 
significantly improved the organization of the Department of Defense, 
focused our joint warfighting capabilities, enhanced the military 
advice received by the Secretary of Defense, and increased the 
integration of service capabilities.
                                 duties
    Question. Section 8013 of Title 10, United States Code, outlines 
the duties of the Secretary of the Air Force, subject to the authority, 
direction, and control of the Secretary of Defense.
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Air Force, pursuant to 10 
U.S.C. Section 8013, is responsible for and has the authority necessary 
to conduct all affairs of the Department of the Air Force. These 
functions include organizing, supplying, equipping, training, 
maintaining, and administering. If confirmed as Secretary of the Air 
Force, I would expect the Secretary of Defense to assign me duties 
consistent with these responsibilities.
    Question. What duties and responsibilities do you plan to assign to 
the Under Secretary of the Air Force?
    Answer. As stated above, the Secretary of the Air Force is 
responsible for and has the authority necessary to conduct all affairs 
of the Department of the Air Force. If confirmed, the Under Secretary 
will partner with me to execute these responsibilities. Beyond a focus 
on space activities as has been designated by the Secretary of Defense, 
the duties of the Under Secretary are expected to evolve to maximize 
the capabilities of the leadership team. If confirmed, I will be 
pleased to keep you informed in this area.
    Question. In carrying out your duties, how will you work with the 
Assistant Secretary of Air Force for Manpower, Reserve Affairs, 
Installations, and Environment; the Assistant Secretary of the Air 
Force for Financial Management and Comptroller; the Assistant Secretary 
of the Air Force for Acquisition; the Assistant Secretary of the Air 
Force for Space; and the General Counsel?
    Answer. If confirmed, Under Secretary of the Air Force, the General 
Counsel, the Assistant Secretaries of the Air Force, along with the Air 
Force Chief of Staff, will form the nucleus of my leadership team. I 
will foster a close working relationship with them on matters within 
their areas of responsibility in order to more effectively manage the 
Department of the Air Force.
                         science and technology
    Question. The Strom Thurmond National Defense Authorization Act for 
Fiscal Year 1999 established the goal of increasing the budget for the 
Department of Defense Science and Technology program by at least 2 
percent over inflation for each of the fiscal years 2000 to 2008. The 
Air Force has been criticized for shrinking its science and technology 
program, rather than expanding it. In President-Elect Bush's speech at 
the Citadel, he spoke of his support for a strong and stable technology 
base.
    Do you believe that a substantial increase in the Air Force's 
science and technology budget is needed?
    Answer. There is always more that can be done to exploit the rapid 
advance of technology to enable our forces to more effectively and 
safely conduct operations. However, as with all investments, the S&T 
program needs must be balanced with the systems acquisition 
requirements and the operational and maintenance demands within the Air 
Force topline funding allocation. This process of balancing priorities 
is a continuing effort among the Air Force senior leadership.
    Question. Congress has authorized the Department to give laboratory 
directors direct hiring authority to enable them to compete for 
scientific and engineering talent. To date, the Department has been 
reluctant to use this authority.
    Do you support giving the Department's laboratory directors the 
authority to make direct hires without having to go through an 18-month 
review process?
    Answer. I support flexibility in both hiring and compensation that 
will allow the Department of Defense to attract and retain highly 
skilled scientists and engineers who can meet the dynamic technological 
challenges of the 21st century. Such flexibility is needed to help 
level the playing field with private industry. Although I have not had 
the opportunity to look at specific hiring authorities in detail, if 
confirmed, I will certainly focus on the challenges the Air Force 
faces.
                             privatization
    Question. With the encouragement of Congress, the Department of 
Defense is fully engaged in the privatization of many of its support 
functions. Among the most significant privatization efforts are 
military family housing and utility systems, although there are 
hundreds of other examples.
    What in your judgment are the risks and benefits of the 
privatization initiatives?
    Answer. Clearly our objective should be to provide quality housing 
for our hard working men and women in uniform and their families. 
Quality of life is important to all of our airmen and is an essential 
element required to maintain the high caliber of personnel needed to 
operate our high tech Air Force. If confirmed, I will welcome the 
opportunity to look at this to ensure we provide quality housing for 
our men and women in uniform and their families.
    Question. In your judgment, is there a point when privatization 
will affect readiness?
    Answer. If confirmed, I will make this particular issue a priority. 
I certainly welcome the opportunity to work with the committee to 
maintain an open dialogue to address this issue.
                  outsourcing of commercial activities
    Question. Do you believe that outsourcing of non-core activities 
can yield substantial savings for the Department of Defense?
    Answer. I understand there are numerous studies on the 
effectiveness of outsourcing. If confirmed, I will work with my staff 
and welcome the opportunity to work with this committee to evaluate the 
effectiveness of outsourcing.
    Question. Do you agree that public-private competition is an 
essential precursor to any outsourcing effort in the Department of 
Defense?
    Answer. If confirmed, I welcome the opportunity to work with my 
staff and this committee to evaluate the issue of public-private 
competition and whether it does generate significantly greater savings.
                        protected communications
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Most definitely, I wholeheartedly support prohibiting any 
such actions.
    Question. If confirmed, what actions will you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will ensure that the Air Force Inspector 
General, who works directly for the Secretary of the Air Force, 
continues to personally brief every Air Force course for new general 
officers, new wing commanders, and new group commanders, emphasizing 
the need for these leadership groups to constantly and consistently 
enforce the Whistleblowers' Protection Act, a key tenet in the 
department's inspector general process.
                        officer promotion system
    Question. In the previous decade, the Air Force had serious 
problems with its officer promotion system, some of which are the 
subject of ongoing litigation.
    Are you familiar with these problems? Do you believe any changes 
are needed in the Air Force officer promotion system?
    Answer. No, I have no detailed understanding of these particular 
issues. However, if confirmed, I will work with my staff and this 
committee to review the existing promotion processes and make 
improvements, when required.
    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest moral and ethical 
values. We are frequently asked to confirm the promotion of officers 
who have substantiated allegation of misconduct that have not been 
considered by the boards that selected these officers for promotion. At 
the same time, the services inform us that they have many highly 
qualified officers for each available general and flag officer billet.
    What steps will you take to ensure that only the most highly 
qualified officers are nominated for promotion to general and flag 
officer rank?
    Answer. If confirmed, I will work this particular issue hard. I 
will ensure my staff maintains an open dialogue with this committee on 
these critical general officers matters.
                             modernization
    Question. Operational support costs for existing aircraft platforms 
continue to rise as mission capable rates have declined. As this has 
happened, funds have been moved from research and development and new 
procurement to operation and maintenance to meet current readiness 
requirements.
    Absent changes in the force structure, unless there is an infusion 
of funding above what is expected, how can the Air Force afford its 
planned tactical aircraft modernization program?
    Answer. The Secretary of Defense has an ongoing strategic review of 
key modernization programs within the Department. If confirmed, I 
welcome the opportunity to work with this committee to discuss the 
results of the review and its impact on the existing Air Force tactical 
aircraft programs.
                           precision weapons
    Question. There has been an increasing dependence on standoff 
precision weaponry over the past decade. Operation Allied Force caused 
us to expend sizeable portions of the inventories of some of these 
weapons.
    Do you think the Air Force has an executable, affordable plan to 
acquire the weaponry required to support the national military 
strategy?
    Answer. I understand the Air Force does. However, if I am 
confirmed, the current Air Force plan will be reviewed in light of the 
Secretary of Defense's strategic review.
                                 space
    Question. If the Air Force becomes the Executive Agent for the 
Department of Defense for Space, how will you ensure that each of the 
military services' unique requirements are met, in addition to shared 
requirements?
    Answer. As DOD's Executive Agent for Space, the Air Force will 
continue to work closely with our sister services and Joint Staff to 
ensure unique and shared requirements are addressed. I believe 
consolidating management of the Department's overall space program will 
facilitate an improved response to requirements and affordability.
    Question. Do you believe the Air Force should have veto or approval 
authority over the space budget of a sister service?
    Answer. I don't expect the Air Force to have or exercise that kind 
of authority over another service's space budget. However, a key intent 
of the Space Commission's recommendation to consolidate space 
organization and management is to bring greater accountability and 
transparency to military space programs. In that regard, if confirmed, 
I and the Under Secretary of the Air Force will work closely with the 
Department and our service counterparts to ensure space acquisition 
planning, programming and budgeting activities are closely linked.
    Question. Do you support creation of an Under Secretary of the Air 
Force for Space?
    Answer. I support the Secretary of Defense's announcement that the 
Under Secretary of the Air Force be dual-hatted as the Air Force 
Acquisition Executive for Space and as the Director of the NRO.
                           strategic systems
    Question. Do you support the prompt retirement of the peacekeeper 
ICBM?
    Answer. Commensurate with the outcome of the Secretary of Defense's 
strategic review, if confirmed, I look forward to working with the 
committee as well as the Department on this issue.
    Question. What are your views on the Air Force requirement for 
long-range bombers?
    Answer. The Air Force is committed to sustaining and modernizing 
our long-range strike capabilities to meet our current and future 
wartime commitments. Bombers have inherent strengths of range, payload 
(standoff, precision and non-precision), flexibility, and 
responsiveness that bring vital capabilities required in virtually all 
combat environments. Subject to the outcome of the ongoing strategic 
review, and if confirmed, I commit to a thorough analysis of this 
mission area.
                          intelligence systems
    Question. Will you ensure that the Air Force works closely with the 
intelligence community and the United States Strategic Command to 
ensure that intelligence sensors, such as the V-sensor on GPS and SABRS 
on SBIRS, are included on Air Force satellites?
    Answer. The Air Force's close and continuing cooperation with the 
Intelligence Community and U.S. Strategic Command is essential. If 
confirmed, I will work with these mission partners, and others as 
appropriate, to balance performance, cost, and schedule factors when 
evaluating Air Force satellites as hosts for intelligence sensors.
                           acquisition reform
    Question. Secretary Rumsfeld testified at his confirmation hearing 
that the cycle time for major acquisition programs conducted over the 
past several decades averages between 8 and 9 years. Others have stated 
that the cycle time may be as long as 15 to 20 years. The Secretary 
stated that this cycle time is not sufficiently responsive to urgent 
new challenges and rapidly emerging technological developments.
    What are your thoughts on specific steps that can be taken to 
reduce the cycle time for major acquisition programs?
    Answer. It is my understanding the Air Force is currently 
implementing recommendations resulting from the Air Force Cycle Time 
Reduction Program. Key among the focus areas is the ability to rapidly 
select and approve development and fielding of demonstrated 
technologies.
    Question. Do you see a need for any changes to the existing 
acquisition structure and/or acquisition chain of command?
    Answer. If confirmed, I will closely work with my service 
secretary's colleagues and the Under Secretary of Defense for 
Acquisition to address the variety of issues that impact our 
acquisition structure and acquisition chain of command.
                         acquisition workforce
    Question. There has been considerable pressure to reduce 
acquisition organizations on the basis of absolute numbers. DOD has 
reduced its acquisition workforce approximately 50 percent, from the 
end of fiscal year 1990 to the end of fiscal year 1999, while the 
workload has remained essentially constant, and even increased by some 
measures.
    Are you concerned that reductions to the acquisition workforce will 
have a negative effect on program management, and if so, how do you 
plan to address this problem?
    Answer. It is my understanding the Air Force is proactively 
working, in conjunction with OSD, to minimize the impact of the 
reductions on our acquisition mission. If confirmed, I'll conduct a 
complete bottom-up review of the Air Force acquisition workforce to 
identify the right skills and employee mix (active duty military, 
civilian, Air National Guard, Reserve, and contractor) required to meet 
the needs of the warfighters.
    Question. As the DOD continues to emphasize contracting out and 
competitive sourcing, the skills, training, and experience of the 
acquisition workforce will be critical in effectively managing these 
contracts. In addition, the Department's Acquisition Workforce 2005 
Task Force has reported that DOD will be faced with a significant 
demographic challenge, as 50 percent of the remaining acquisition 
workforce will be eligible to retire in the next 5 years.
    Do you believe the current acquisition workforce has the quality 
and training to not only adapt to new acquisition reforms, but also 
respond successfully to the increased workload and responsibility from 
managing privatization efforts?
    Answer. The acquisition workforce has done a phenomenal job of 
stepping up to the workload driven by increased outsourcing and 
privatization efforts. If confirmed, I will diligently work to get our 
people the training to ensure they are able to work smarter, not just 
harder.
                           service stovepipe
    Question. One of the principal criticisms of the Department of 
Defense is that the military services continue to pursue their 
individual systems--from logistics to data management--which increases 
costs and hinders interoperability. Although there have been efforts to 
remove these service stovepipes in the past, they continue to exist.
    If confirmed, what actions will you take to eliminate service 
unique systems where systems could be developed to serve all of the 
services?
    Answer. Pending the outcome of the Secretary of Defense's strategic 
review and if confirmed, I will enthusiastically work with my service 
secretary colleagues, the Under Secretary of Defense for Acquisition, 
as well as the Department and this committee to address this critical 
issue and enhance and maximize interoperability.
                          air force retention
    Question. Last year, the Air Force experienced retention problems. 
It was the only service that missed its enlisted retention goals in the 
1st, 2nd, and 3rd term retention categories.
    What do you consider to be the most critical factor causing Air 
Force retention problems?
    Answer. I strongly believe that the great men and women of the 
United States Air Force are our most valuable resource. If confirmed, I 
pledge to the committee that this will be one of my highest priorities. 
There are many reasons our people choose to leave the service. I commit 
to making the Air Force an even better place to work and live so we may 
retain the people who want to serve our Nation. I look forward to 
working with this committee on this issue.
    Question. If confirmed, what would you do to ensure that fiscal 
year 2001 retention goals are attained?
    Answer. The approach to the retention problem has to be balanced, 
since the issue is not driven by one factor. I understand that while 
service to the Nation is the primary reason people join the Air Force 
and the primary reason they stay, there are many factors that affect 
their decisions to leave. Once again, if confirmed, I pledge to this 
committee that one of my highest priorities will be the magnificent men 
and women of the United States Air Force.
                              end strength
    Question. In the National Defense Authorization Act for Fiscal Year 
2001, the end strength of the Air Force was established at 357,000. The 
committee has since learned that the Air Force may have little chance 
of achieving this end strength.
    If confirmed, what steps will you take to ensure that the Air Force 
achieves its fiscal year 2001 end strength?
    Answer. I understand the Air Force has implemented many initiatives 
to address recruiting and retention. Included in these are more 
recruiters, paid advertising, increased and targeted bonuses, etc. I'm 
aware this committee has been very helpful in addressing solutions to 
aid the end strength issue and, if confirmed, I look forward to working 
with this committee in finding further answers to this problem.
                              environment
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include environmental constraints on 
military training ranges, local community efforts to obtain military 
property, airspace restrictions to accommodate civilian airlines, 
transfer of radio frequency spectrum from the Department of Defense to 
the wireless communications industry, and many others. Unless these 
issues are effectively addressed, our military forces will find it 
increasingly difficult to train and operate at home and abroad.
    In your opinion, how serious are these problems to the Air Force?
    Answer. I understand base, training range, and spectrum 
encroachment issues are a serious challenge to sustaining mission 
readiness. I expect there are increasing challenges not only with our 
current level of operations, but also with the beddown of new weapon 
systems or realignments. If confirmed, I will make this a priority in 
working within the Department and with this committee to ensure 
required access.
    Question. If confirmed, what actions would you propose to ensure 
these issues do not prevent your service from effectively training and 
operating both at home and abroad?
    Answer. I believe there must be a balance between test, training, 
and readiness requirements and responsible stewardship. If confirmed, I 
will foster the development and maintenance of partnerships with our 
sister services, civilian government agencies, tribal governments, and 
other stakeholders that serve to address areas of mutual interest in 
order to sustain our required access to ranges and airspace.
    Question. Commercial air traffic is expected to increase 6 percent 
annually and military airspace use will also increase with the next 
generation of high performance weapon systems. As a result of the 
pressures associated with commercial air traffic congestion, noise, and 
environmental concerns, the acquisition and use of special use airspace 
has evolved into a challenging endeavor for all of the military 
departments.
    How would you meet such challenges to ensure the acquisition and 
use of critical airspace for military training?
    Answer. I understand that the senior members of the DOD Policy 
Board on Federal Aviation along with the Department of Transportation/
FAA are currently determining a plan for effective joint FAA-DOD 
interaction. If confirmed, I will ensure this open dialogue continues.
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action, and those that 
will be out of compliance before the next budget cycle.
    Would you agree that continuing funding for this type of 
environmental cleanup is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. Yes, I believe we need to maintain positive, productive 
relationships and comply with current agreements.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of the environmental laws?
    Answer. No.
    Question. Do you support the basic principle of the Federal 
Facilities Act and other laws that Federal facilities, including DOD 
facilities, should be subject to the same standards as comparably 
situated civilian facilities?
    Answer. Yes.
    Question. The Department of Defense faces a bill for the clean-up 
of unexploded ordnance (UXO) that is at least in the tens of billions 
of dollars, and could be well be in to the hundreds of billions of 
dollars. At current funding levels, it has been estimated that it would 
take the military services several thousand years to remediate UXO 
problems on a DOD-wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    Answer. If confirmed, I will work within the Department and with 
the Air Force Major Commands to address this critical issue.
    Question. Do you believe that increased investment in UXO 
remediation technologies would be likely to produce more effective and 
efficient remediation processes and substantially reduce the 
Department's long-term clean-up liability (and the time required to 
complete such cleanup)?
    Answer. If confirmed, I welcome the opportunity to look into this 
difficult and critical issue.
     commercial versus military requirements for frequency spectrum
    Question. The Federal Government is currently conducting a series 
of studies to determine a band of frequencies that can be used for the 
operation of third generation wireless communications devices. As a 
part of this overall effort, the Department of Defense is conducting a 
study to determine the cost and operational impact that would result if 
the military services were to surrender the use of the 1755-1850 MHz 
band of frequencies on which they currently operate their equipment. As 
the Department of Defense's information requirements increase with the 
advances taking place in weapon system technology, the Department's 
requirement for frequency access will also increase. However, the 
commercial sector is also experiencing increased requirements for 
frequency spectrum to meet the demands of the American consumers. 
Spectrum is a finite resource and we have to ensure it is utilized in 
the most efficient and beneficial manner possible.
    If confirmed, what actions would you take to review your service's 
total spectrum requirements and ensure that new systems are designed to 
ensure efficient spectrum utilization by the Department of Defense?
    Answer. If confirmed, I will encourage the research, development, 
and acquisition of systems that efficiently use the radio frequency 
spectrum in support of national security. I will work within the 
Department to address national spectrum use standards for both 
government and private industry.
    Question. If confirmed, what actions would you take if the study 
currently being conducted within the Department of Defense determines 
that there will be a significant cost and operational impact if the 
military services surrender the 1755-1850 MHz band of frequencies?
    Answer. If confirmed, I will familiarize myself with the results of 
the study and provide my assessment of its impact on Air Force 
warfighting capability to the office of the Secretary of Defense. I 
also look forward to working with the committee to address these 
challenges.
                      base realignment and closure
    Question. Over the past several years, various departmental 
witnesses have testified that there is excess defense infrastructure 
and requested Congress to authorize another round of base closure.
    Do you believe that we have excess defense facilities and, if so, 
where does this excess capacity exist?
    Answer. If confirmed, I look forward to working within the 
Department and with this committee to address the recommendations of 
the Secretary of Defense's strategic review as they relate to force 
sizing and force beddown options.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    Based on your private sector experience, do you believe the 
Department of the Air Force is investing enough in its infrastructure? 
How does the Air Force's investments in its infrastructure compare to 
what you are used to in the private sector? What steps would you plan 
to take to address this issue?
    Answer. I believe it will be necessary to re-evaluate our funding 
levels once the Secretary of Defense's strategic review is complete and 
we understand our force structure needs and the basing network 
required. If confirmed, I welcome the opportunity to address this 
issue.
                    civilian control of the military
    Question. Press reports indicate that increasing civilian control 
of the military services will be a priority of this administration.
    What changes do you and Secretary Rumsfeld plan to make in your 
duties and responsibilities or those of the Under Secretary or 
assistant secretaries in your department?
    Answer. If confirmed, I expect to meet with Secretary Rumsfeld to 
discuss his expectations for my participation as a member of his 
management team. Based on this guidance, I will make changes in the 
duties and responsibilities of the Under Secretary and assistant 
secretaries, if needed.
    Question. Section 8014(c) of Title 10 requires that the Office of 
the Secretary of the Air Force have sole responsibility for 
Acquisition, Auditing, Comptroller (including Financial Management), 
Information Management, Inspector General, Legislative Affairs, and 
Public Affairs.
    If confirmed, will you review each of these functional areas to 
ensure that the Air Force is in compliance with the statutory 
requirement?
    Answer. Yes.
    Question. The services have traditionally had a uniformed flag rank 
officer rather than the Assistant Secretary of Financial Management run 
their budget office. Do you intend to follow this arrangement or do you 
plan to increase civilian control over your service's budget decisions?
    Answer. If confirmed, I will carefully review the current 
arrangement and its effectiveness.
    Question. The service secretaries have traditionally delegated 
management of readiness to the uniformed services. What role do you 
intend to play in readiness issues?
    Answer. If confirmed, I will work closely with the Air Force Chief 
of Staff and the Air Force Major Commands to review the readiness of 
our forces. I would expect to be fully involved in any readiness issues 
faced by the Air Force.
                           civilian workforce
    Question. What steps would you plan to take to bring new people 
with the desired skills into our civilian workforce as more and more of 
the current workforce is becoming retirement eligible?
    Answer. If confirmed, I will support initiatives to address this 
critical issue. I particularly welcome any and all suggestions on how 
to provide needed responsiveness and agility in managing our civilian 
workforce. I also look forward to working with Congress on these 
challenges.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Secretary of the Air Force?
    Answer. If confirmed as the next Secretary of the Air Force, I have 
four major priorities. First, in accordance with Secretary Rumsfeld's 
security review, the Air Force needs to evaluate and build the most 
appropriate aerospace strategy for today's national security 
environment. Second, the Air Force must do better at retaining Air 
Force people, both uniformed and civilian. Third, the Air Force must 
find better ways to organize, while improving the effectiveness and 
efficiency of its processes. This includes bringing the best practices 
found within both the government and industry to bear in its own 
business dealings. Finally, the Air Force must pay special attention to 
the shrinking military-industrial base and evaluate ways to improve its 
current acquisition processes to ensure innovative future capabilities 
for the Nation.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I plan on working closely with Congress, 
Secretary Rumsfeld, and the other service secretaries to 
comprehensively address these challenges, develop definitive goals, and 
measure our progress towards solving them.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that the committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities, as the Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communication of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                      affordable re-capitalization
    1. Senator Thurmond. According to a January 2001 article, the Air 
Force wants to spend an additional $8 billion per year for 11 years to 
rebuild its rapidly aging fleet of fighters, tankers, airlifters, and 
reconnaissance/intelligence-gathering aircraft at a rate of 150-170 per 
year. Do you believe $8 billion per year for aircraft is affordable, 
when the Air Force, as well as the other services, has critical 
shortfalls in real property maintenance and training funds?
    Dr. Roche. It is my understanding that many of the Air Force's 
readiness concerns are attributed to the aging aircraft fleet. It seems 
reasonable that the costs of maintaining older aircraft will continue 
to increase. At some point, it may be cheaper to replace the aging 
aircraft than to modernize them. If confirmed, evaluating the proper 
balance between all the competing priorities in a constrained budget 
will be one of my top priorities.

                  role of unmanned combat air vehicles
    2. Senator Thurmond. As the Air Force is looking into the future 
and the replacement of its aging aircraft fleet, what role do you see 
for ``unmanned combat air vehicles?''
    Dr. Roche. I agree with the President's point that we must look to 
new and future technologies, and leverage their capabilities. Our 
recent warfare successes in Kosovo and Iraq are building an expectation 
of minimizing both friendly and adversary casualties in warfare. 
Unmanned combat air vehicles with precision strike capability would 
seem to be the technological response to meet these two requirements. 
However, I think we must also consider new capabilities and 
technologies against historical precedence. If I am confirmed, I will 
carefully evaluate how the unmanned combat air vehicle fits into the 
Air Force and our national security strategy.

             reforming operations of department of defense
    3. Senator Thurmond. According to press accounts, the panels 
appointed by Secretary Rumsfeld to review our national security 
strategy and the operations of the Department of Defense are developing 
a wealth of recommendations. Based upon your long association with the 
Department of Defense, what in your personal view is the highest 
priority reform you would propose to improve the operation of the 
Department of Defense?
    Dr. Roche. If confirmed as the next Secretary of the Air Force, I 
believe the most important reformation of the Department of Defense is 
to work jointly with the Secretary of Defense and the other service 
secretaries on all issues important to our national interests. Joint 
operations are a critical facet of our military structure, for history 
confirms that military action requires both strategic and operational 
unity of effort. To me this means unity of operations in air, space, 
and information warfare--as well as on land and in the sea. As the 
Secretary of the Air Force, I also believe it is my charge to represent 
the best interests of the Air Force in all decision matters, but 
wholeheartedly support the final decisions made by the President and 
Secretary of Defense.

                      leasing of excess facilities
    4. Senator Thurmond. Although the four previous base closure rounds 
have closed or realigned over 90 major and 200 minor military 
installations, the Department indicates that there is still excess 
capacity. The immediate reaction to this excess is that we must have 
additional base closures to eliminate the excess. I am not convinced 
that base closure is the only solution. I believe we should use this 
capacity to our advantage. We can work with the private sector to use 
this property on a dual-use basis and at the same time retain the 
facility for future surge capacity.
    What are your views on the potential of leasing excess facilities 
to the private sector?
    Dr. Roche. I am concerned that excess infrastructure and facilities 
take crucial dollars away from people, readiness, and modernization 
programs. In business, we normally divest capital that does not 
contribute to the goals and profit of our operation. With this in mind, 
if I am confirmed, I will look toward balancing the need to preserve 
facilities for future requirements with all the costs and options to 
accomplish this.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                         f-22 testing progress
    5. Senator Santorum. Last year, Congress allowed a 1\1/2\ percent 
``cushion'' above the F-22 cap for engineering, manufacturing, and 
development, if it was required to ensure adequate test content in the 
program. The committee has received a letter from the former Director 
of Operational Test and Evaluation stating that these additional funds 
would be required for testing of the F-22.
    What is your impression of the progress being made by the F-22 in 
testing? Specifically, is testing proceeding at a rate adequate to 
ensure the aircraft will be adequately tested, while coming in under 
the caps?
    Dr. Roche. I believe the F-22 attributes of speed, stealth, super-
cruise, and precision targeting provide a generational leap in military 
capability, and the procurement of this platform will remain unrivaled 
for many years to come. However, cost overruns and test inefficiencies 
concern me greatly. If confirmed as Secretary of the Air Force, one of 
my major priorities, working with the Under Secretary of Defense for 
Acquisition and the other service secretaries, will be to improve the 
effectiveness and efficiency of the acquisition and test processes.

                      joint strike fighter funding
    6. Senator Santorum. The Joint Strike Fighter is approaching a 
major decision point, with a source selection and entry into 
engineering and manufacturing development (EMD). Do you feel the 
program can receive the stable funding required for it to meet its 
goals in light of other programs competing for limited resources, e.g. 
F-22 in the case of the Air Force and FA-18E/F in the case of the Navy?
    Dr. Roche. If confirmed, I will diligently evaluate how to balance 
the modernization needs of the Air Force with its other budgetary 
requirements in order to meet the resulting guidance from the Secretary 
of Defense's strategic review.

            national education center for women in business
    7. Senator Santorum. Congress appropriated $4 million in fiscal 
year 2000, and another $4 million in fiscal year 2001, for the Air 
Force's Manufacturing Technical Assistance Pilot Program (MTAPP), 
whereby $2 million each year was to fund MTAPP work at the National 
Education Center for Women in Business (NECWB) at Seton Hill College. 
To date, only 5 percent of the $4 million that Congress, by law, 
directed to fund the NECWB's important work has actually reached this 
center. What steps will you take to ensure that these dollars fund the 
NECWB in a timely and efficient manner?
    Dr. Roche. In fiscal year 2000, the Air Force spent over $1.2 
million in Pennsylvania to comply with the express intent of Congress 
that $2 million be utilized to expand the MTAPP in that State. The 
entire amount was not obligated in fiscal year 2000 due to the late 
arrival of program funding, which shortened the performance period, and 
significant delays involving the prime contractor's effort to match 
Seton Hill College's capabilities as a subcontractor to the contract 
statement of work.
    Fiscal year 2002 funds were received even later than previous years 
and this is the final execution year of the pilot program contract; 
therefore, period of performance for fiscal year 2002 funds is 
extremely truncated. However, we are hopeful that Seton Hill College 
will be able to make a valuable contribution to the MTAPP program. An 
on-line training reference guide was to be offered to Seton Hill as a 
subcontract through the MTAPP prime contractor, Mid.Tec., in fiscal 
year 2002. We are hopeful that Seton Hill will submit a cost-effective 
proposal on the subcontract effort.
                                 ______
                                 
               Question Submitted by Senator Wayne Allard
                      military space organization
    8. Senator Allard. Secretary Rumsfeld announced his recommendations 
regarding our military space organization as encouraged by the Space 
and NRO Commissions.
    Please comment on the importance of outer space and space 
activities to our national security and economic well-being of the 
United States, as well as our allies and friends. Do you foresee any 
need for legislative changes to accomplish these recommendations?
    Dr. Roche. I want to thank this esteemed committee for all of their 
support to this Nation's military space programs--they have become, in 
my mind, one of the foundational aspects of the aerospace superiority 
our Nation enjoys. I have reviewed the Space and NRO Commissions' 
recommendations and I agree that the future of our aerospace 
superiority depends in large part on how well we can respond to and 
implement those recommendations. If confirmed, I will work to implement 
those recommendations that pertain to the Air Force.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                           budget priorities
    9. Senator Collins. I think many Members of this committee are 
struggling with trying to understand not only the details, but also the 
broad outline of the defense strategy that is being developed in the 
Pentagon under Secretary Rumsfeld as part of this ongoing strategic 
review. Obviously, the broad strategy will eventually include some 
details on individual systems. It seems, however, that the top 
priorities for Secretary Rumsfeld are generally intelligence gathering, 
space, and missile defense.
    This concerns me very much. While those may be correct and 
valuable, I am concerned that focusing on too narrow a picture will 
allow other, equally important and equally broad priorities to get left 
behind. If you are confirmed, what do you envision your budget 
priorities for the Air Force to be--not Secretary Rumsfeld's--but 
yours? How do you intend to voice those priorities in an administration 
where important budget decisions are being made right now?
    Dr. Roche. If I am confirmed as Secretary of the Air Force, one of 
my first priorities will be to delve deeply into and participate in the 
defense review processes begun by Secretary Rumsfeld. It goes without 
saying that the world environment has changed dramatically in the last 
12 years, and the entire defense establishment has yet to appropriately 
respond and adapt to this new environment. I look forward to the 
opportunity to help shape our Nation's defense strategy for the future.

                    modernization--budget priorities
    10. Senator Collins. I am especially concerned for the 
modernization of our tactical air fleets and strategic airlift 
programs--programs like the F-22, the Joint Strike Fighter, and the C-
17. What is your view of these programs as budget priorities in this 
new defense strategy?
    Dr. Roche. The outcome of Secretary Rumsfeld's defense reviews and 
their corresponding new strategy may affect the roles, 
responsibilities, and requirements of our Nation's Air Force. If 
confirmed as Secretary of the Air Force, I will work with Secretary 
Rumsfeld to achieve the best balance between the competing priorities 
necessary to fulfill the new defense strategy.
                                 ______
                                 
    [The nomination reference of Dr. James G. Roche follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 7, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. James G. Roche, of Maryland, to be Secretary of the Air Force, 
vice F. Whitten Peters.
                                 ______
                                 
    [The biographical sketch of Dr. James G. Roche, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. James G. Roche

    Dr. James G. Roche has served as Corporate Vice President and 
President, Electronic Sensors and Systems Sector of Northrop Grumman 
Corporation from 1996 to present. He was the Corporate Vice President 
and General Manager of the Electronics Sensors and Systems Division 
(the former Westinghouse Electronics Systems Group) from March 1996. 
The current sector, established in 1998, combines all the electronics 
businesses of the Northrop Grumman Corporation.
    Dr. Roche has previously served as the Corporate Vice President and 
Chief Advanced Development, Planning, and Public Affairs Officer 
responsible for the company's Advanced Technology and Development 
Center, Business Strategy Group, the Washington Analysis Center, State 
Relations and Public Affairs Department. He led the transition team 
responsible for merging the Northrop, Grumman, and Vought Corporations, 
as well as the integration of the Westinghouse defense business. 
Formerly, he was the Assistant to the Chairman, President, and Chief 
Executive Officer. Before July 1989, he was the Vice President and 
Director of the Northrop Analysis Center in Washington DC.
    He served 23 years in the U.S. Navy, retiring in the rank of 
captain in 1983. While in the Navy, he held several positions, to 
include Principal Deputy Director of the State Department's Policy 
Planning Staff; Senior Professional Staff Member of the U.S. Senate 
Select Committee on Intelligence; and Assistant Director for the 
Defense Department's Office of Net Assessment. He commanded the U.S.S. 
Buchanan, a guided missile destroyer, and is a winner of the Arleigh 
Burke Fleet Trophy for the most improved combat unit in the Pacific. 
Before joining Northrop Grumman, he was the Democratic Staff Director 
of the U.S. Senate Armed Services Committee.
    A native of New York, he graduated from the Illinois Institute of 
Technology in 1960 with a bachelor's degree in language, literature, 
and philosophy. In 1966 he earned a Master of Science degree in 
operations research from the U.S. Naval Postgraduate School, Monterey, 
Calif. In 1972 he earned a doctorate degree in business administration 
from the Harvard Graduate School of Business Administration, Cambridge, 
Mass.
    Dr. Roche has served as a member of the Secretary of Defense's 
Policy Board and is a member of the Council on Foreign Relations. He 
was the President of the Board of the World Affairs Council of 
Washington, DC, and he is on the Board of Visitors of the University of 
Maryland.
    Dr. Roche has been awarded various campaign ribbons and military 
medals to include the Legion of Merit.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. James G. 
Roche in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Gerard Roche.

    2. Position to which nominated:
    Secretary of the Air Force.

    3. Date of nomination:
    May 7, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    16 December 1939; Brooklyn, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Diane Mikula.

    7. Names and ages of children:
    Heather Anne Roche, 32.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. Anthony's High School, 1952-1956.
    Loyola University, September 1956 to June 1957.
    Illinois Institute of Technology, September 1957 to June 1960. BS 
in June 1960.
    Naval Postgraduate School, March 1964 to October 1966. MS in 
October 1966.
    Harvard Business School, June 1968 to June 1972. DBA in June 1972.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Corporate Vice President and Assistant to the Chairman, President, 
and Chief Executive Officer of Northrop Corporation, 1991.
    Corporate Vice President and Chief Advanced Development, Planning, 
and Public Affairs Officer, Northrop Corporation, 1993.
    Corporate Vice President and General Manager, Electronic Sensors 
and Systems Division, Northrop Grumman Corporation, 1996.
    Corporate Vice President and President, Electronic Sensors and 
Systems Sector, Northrop Grumman Corporation, 1998.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Career U.S. Navy, 1960-1983.
    OSD, Office of Net Assessment, 1975-1979.
    Senate Select Committee on Intelligence, Professional Staff Member, 
1979-1981.
    Department of State, Principal Deputy Director, Policy Planning 
Staff, 1981-1983.
    Senate Committee on Armed Services, Staff Director for the 
Minority, 1983-1984.
    Consultant to OSD, Office of Net Assessment, without compensation, 
1985-Present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Chairman of the Board, Center for Strategic and Budgetary 
Assessment.
    Member of the Board of Trustees and Government Relations Committee, 
College Park Foundation, University of Maryland.
    Member of the Board of Visitors and Governors, St. John's College.
    Member of the Board of Trustees, Naval Institute Foundation.
    Member of the Board of Trustees, Maryland Historical Society.
    Member of the Board of Directors, Historic Annapolis Foundation.
    Member of the Board of Advisors, Washington Institute for Near East 
Studies.
    Member of the Board of Visitors for U.S. JFCOM of the Rand 
Corporation.
    Member of the Donors Forum on International Affairs.
    Member, Board of Advisors, Center for Security Policy.
    Member of the Executive Advisory Council, Friends of the Jewish 
Chapel, U.S. Naval Academy.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Aerospace Industries Association.
    Association of U.S. Army.
    American Helicopter Society.
    International Institute for Strategic Studies.
    Conquistadores del Cielo.
    Council on Foreign Relations.
    National Aeronautics Association.
    Naval Surface Warfare Association.
    Naval Submarine Association.
    American-Israeli Public Affairs Commission.
    Fleet Reserve Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Northrop Grumman Political Action Committee, $1,000, 2000.
    Howard Berman, ``Berman for Congress,'' $300, 1999.
    Parris Glendening, ``Glendening for Governor'' $2,000, 1998.
    Howard Berman, ``Berman for Congress'' $500, 1998.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Various military medals, including Legion of Merit.
    Governor's Arts Award, State of Maryland, 2000.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Opinion Essay, Defense Daily International, June 9, 2000. ``The 
Anticipated Odeen Report and Competition in the Defense Industry.''
    Article, with Barry Watts, The Journal of Strategic Studies, June 
1991, Frank Cass, London. ``Choosing Analytic Measures.''
    Chapter, Staying the Course: Henry M. Jackson and National 
Security, 1987, University of Washington Press. ``Jackson: Foreign 
Affairs Generalist.''
    Earlier works on Net Assessment with Barry Watts and George 
Pickett.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Israeli Air Force 50th Anniversary Conference in Tel Aviv, June 
1998. ``Tactical Air Sensors: Some Thoughts on the Future.''
    Lockheed Martin Israel Conference 2000, Ft. Worth, Texas, May 2000. 
``U.S.-Israeli Industrial Cooperation.''

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    James G. Roche.
    This 7th day of May, 2001.

    [The nomination of Dr. James G. Roche was reported to the 
Senate by Senator John Warner on May 21, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2001.]
                              ----------                              

    [Prepared questions submitted to Alfred V. Rascon by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                                ------                                

                        Questions and Responses
                                 duties
    Question. If confirmed as the Director of Selective Service, what 
would you view as your principal responsibilities and duties?
    Answer. The principal responsibilities of the Director are noted in 
the Military Selective Service Act: to be ready to provide both trained 
and untrained manpower to the Armed Forces in the number and time 
frames requested by the Department of Defense, and to be prepared to 
manage an Alternative Service Program for those men classified as 
conscientious objectors. This charter implies that Selective Service be 
organized, staffed, and trained to perform these tasks.
                             relationships
    Question. The mission of the Selective Service System (SSS) is to 
provide needed manpower to the Defense Department in time of national 
emergency.
    What will your relationship be to the Secretary of Defense, the 
Under Secretary of Defense for Personnel and Readiness, and the 
Assistant Secretary of Defense for Force Management Policy?
    Answer. It is clear that the chief customer of the Selective 
Service ``product'' is the Department of Defense. As is the case today, 
Selective Service receives its guidance on the numbers of conscripts 
that may be required in a crisis, as well as the desired time frames 
from the manpower planners at the Department of Defense. The Agency's 
primary contact within DOD is with the Assistant Secretary for Force 
Management Policy in the Office of the Under Secretary for Personnel 
and Readiness. We work very closely with the Military Entrance 
Processing Command, which also comes under this structure and, in fact, 
share a Joint Computer Center at Great Lakes, Illinois. As necessary, 
there is also direct liaison with the Office of the Secretary of 
Defense regarding SSS policy issues. Over many years, these 
relationships have worked well and I will ensure that they continue.
    Question. What will your relationship be to the assistant 
secretaries for manpower in the military services; the uniformed 
personnel chiefs of the military services; and the manpower officials 
in the Joint Staff?
    Answer. As an independent civilian agency, Selective Service's 
principal interface with DOD is the Office of the Secretary of Defense. 
Joint and service manpower officials express their needs up their chain 
to OSD. This said, Selective Service has historically responded to the 
services on service-unique issues. For example, the SSS has been 
assisting individual service recruiting efforts by placing rotational 
recruiting messages for the Active and Reserve components on 
registration acknowledgment cards mailed to more than 38,000 men each 
week. As Director, I will meet with the service secretaries as 
necessary. The services support the SSS by placing 450 National Guard 
and Reserve officers in Selective Service assignments and assisting 
with the registration of young men.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Director of the Selective Service System?
    Answer. There are four: getting the registration message out to the 
public; moving the registration compliance rate back into the 90 
percent range from the current level of 88 percent; maintaining 
readiness to conduct a fair and equitable draft; and defending the 
system against challenges to its survival from those who believe that 
our Nation no longer needs the SSS.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. To heighten awareness of the registration requirement among 
men 18 through 26 years old, I would focus more mass mailings to 
targeted shortfall areas, augmented with public service advertising. 
This would expand the reach and frequency of the registration message. 
In support of this approach, I would add momentum and sustainability by 
encouraging more states to link driver's licenses and permits to the 
federal registration requirement. Finally, I would conduct a top to 
bottom review of all mobilization programs to determine the exact costs 
for readiness and whether the proper level of readiness has been 
achieved. Selective Service needs only to be as ready and capable as is 
necessary to fulfill its responsibilities. With the foregoing 
accomplished, justification for survival of the agency and its missions 
would be self-evident.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Selective Service System?
    Answer. I believe they are two: eroding public awareness of the 
federal registration requirement and a no-growth budget.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. One of my first actions would be to spend 90 to 120 days 
assessing the structure and organization of the system. Given the 
sizeable agency investment in information technology over several 
years, Selective Service need not be organized and operating as it was 
coming out of deep standby in 1980. Through a smarter realignment of 
programs and people, and capitalizing upon automation already in place 
throughout the agency, the resources should be available for 
reprogramming in sync with my priorities. I realize that Selective 
Service is not a growth industry, so any re-direction or new priorities 
must be accomplished within existing resources.
                          proposals for change
    Question. In recent years arguments have been made, based on the 
cost of Selective Service and the manpower requirements of the armed 
forces, that the Selective Service System should be dismantled. 
Legislation has been introduced in the 107th Congress that would 
suspend the registration requirement and the activities of civilian 
local boards and require the Director of Selective Service to report 
regarding the development of a viable standby registration program for 
use only during national emergencies. If confirmed, how would you 
respond to these proposals?
    Answer. Similar legislation has been introduced and debated 
periodically over the last several years. Each and every time, both the 
administration and Congress have decided that it was in the country's 
best interests to continue Selective Service and the registration of 
young men. The SSS remains an important national security asset. I 
believe that this support by each administration and every Congress 
over 20 years is proof positive that those knowledgeable of military 
manpower issues appreciate that the agency is America's only proven, 
time-tested mechanism to expand our armed forces during a crisis. 
Maintaining the capability to conduct a fair and equitable draft costs 
very little and just makes good sense.
              performance of the selective service system
    Question. How accurate is the address information of Selective 
Service registrants in the prime induction group?
    Answer. It is highly accurate because Selective Service employs the 
same program as the U.S. Postal Service--the National Change of Address 
System. In addition, this program is supplemented with changes provided 
by the registrant himself from our acknowledgment mailing to him at his 
residence, through changes a registrant mails using a card at any post 
office, from changes he provides by telephone, and with address updates 
he supplies on the internet.
    Question. What steps is the Selective Service System taking to 
ensure the accuracy of this address information?
    Answer. As stated before, Selective Service uses the same system 
that the U.S. Postal Service employs--the National Change of Address 
System--to track changes in addresses. There is no more comprehensive 
or accurate system available. The agency is primarily concerned with 
having accurate addresses for men reaching age 20, because these men 
would be the first to be called in a future draft. Every December, a 
tape file of young men who will turn 20 in the coming year, including 
those with undeliverable addresses, is sent to a vendor licensed by the 
Postal Service. The records of registrants are matched against the 
National Change of Address data base which contains all change of 
address notices filed at post offices in the U.S. by the public during 
the prior 36 months. As matches against the file are processed, address 
updates are applied to the SSS data base. This program confirms the 
accuracy of more than two million registrant records annually, thereby 
ensuring that prime draft eligible men can be reached in the event of a 
national emergency.
    Question. At this time, how long would it take the military 
services' training base to be in a position to accept and begin 
training significant numbers of registrants?
    Answer. The Department of Defense has told us that the training 
base would be expanded in time to absorb draftees at 193 days after 
notification to SSS to activate the draft.
    Question. What are your views on the military requirement for 
continued registration?
    Answer. I, together with the leadership responsible for national 
security policy, believe that retaining peacetime registration is a low 
cost, unintrusive insurance policy to deal with circumstances we might 
not fully foresee or have planned for. Plus it is a cost-effective 
deterrent and reminder to potential aggressors of America's proven 
military potential and national resolve. Registration is working. Our 
experience demonstrates that there is no resistance to registering. If 
a young man is aware of this legal requirement, he will comply. Our 
challenge is to get the awareness of the requirement out to where young 
men are especially if they are out of the mainstream. Registration is 
not only a hedge against underestimating the number of men needed to 
fight a future war, it is the last remaining link between society-at-
large and the all-volunteer military.
    Question. What would be the effect of suspension of registration on 
the organization, staffing, and budget of the Selective Service System?
    Answer. The GAO looked at options to the current registration 
program in 1997 and determined that were registration to be terminated, 
there would be a reduction in authorized and assigned civilian and 
military personnel within the SSS by about one-third. The associated 
dollars would be about $8.2 million, or about one-third of the current 
agency budget. The GAO made no recommendations for change.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Absolutely. I see it as a matter of integrity and principle 
that the agency head be the facilitator between Selective Service and 
Congress in an ongoing dialogue. I've mentioned public awareness of the 
registration requirement, but the other type of awareness is agency 
awareness by the oversight committees. This can only be achieved if I 
am responsive, and I intend to be responsive.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. If the committee desires the personal views of Al Rascon, 
it just has to ask.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Director, Selective 
Service System?
    Answer. If confirmed, I envision my job as Director to be the lead 
in the exchange of information between the committee and Selective 
Service. Selective Service is a public agency doing the public's 
business. It can only retain its programmatic credibility if what it 
does is open to public view-and this means Congress.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. I assure you that I and Selective Service will continue to 
be forthright and responsive in any communications to or from a 
committee.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. Unfortunately there are many of our citizens, 
including some in Congress, who believe that the Selective Service has 
outlived its usefulness. Other than registration for the draft, how 
does the Selective Service contribute to national security, 
specifically the all volunteer force?
    Mr. Rascon. Selective Service is the only proven, time-tested 
mechanism to expand our armed forces during crisis. The President and 
Congress know that it is a low cost, unintrusive insurance policy to 
deal with circumstances we might not fully foresee or have planned for. 
Plus it is a most cost-effective deterrent and reminder to potential 
aggressors of America's proven military potential. But the immediate 
aid to the all volunteer force is our joint Selective Service/Defense 
Department mailing. Because we contact about 2 million young men each 
year to provide them with their Selective Service Number, we have 
redesigned our official registration acknowledgment card to allow 
inclusion of a joint service recruiting piece which has a return 
postcard for further information. Defense likes this assistance because 
its message goes to 70,000 military age men every 2 weeks--to accurate 
addresses in a vehicle which must be opened by the young man. Each 
postcard received by Defense is a timely ``lead'' for its recruiter.

    2. Senator Thurmond. What would be the impact of placing the 
Selective Service into ``deep standby'' and suspending the registration 
program?
    Mr. Rascon. There would be several negative impacts. First, the 
ability of the United States to conduct a fair and equitable draft 
would be compromised for at least one year while a complete registrant 
database is being created from scratch. Second, there are no guarantees 
that trained personnel and time-proven policies and procedures would be 
available when needed. Third, any reconstitution of Selective Service 
would take precious time as the Nation cobbled together an operating 
organization from practically nothing. Finally, whatever is the 
resulting agency it might not pass constitutional muster--exactly at 
the moment when it is needed most. Consequently, the cost-effective 
insurance policy which Selective Service represents remains relevant 
today and into the future.
                                 ______
                                 
    [The nomination reference of Alfred V. Rascon follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Alfred V. Rascon, of California, to be Director of Selective 
Service, vice Gil Coronado, resigned.
                                 ______
                                 
    [The biographical sketch of Alfred V. Rascon, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Alfred V. Rascon
    Alfred V. Rascon is a Medal of Honor Recipient, who was born in 
Mexico, immigrating to the United States as a young boy with his 
parents, settling in Southern California. In 1963, out of high school, 
wanting to give something back to this country, he joined the Army at 
17 years of age. In May 1965, as an Army paratrooper he deployed with 
the 173d Airborne Brigade to South Vietnam. During his tour of duty in 
Vietnam, he was seriously wounded for the second time in March 1966, 
during Operation ``Silver City.'' Because of his heroic actions on 16 
March, he was presented of this Nation's highest award for valor, the 
Medal of Honor, belatedly given to him by President Clinton on 8 
February 2000.
    In 1966, due to his combat injuries, he was honorably discharge 
from the Army. From the fall of 1966 to August 1969, he worked and 
attended college full-time. In 1967, he became a U.S. naturalized 
citizen. He rejoined the Army and graduated from the Army's Infantry 
Officers Candidate School, Fort Benning, Georgia in February 1970, 
commissioned as a Second Lieutenant of Infantry. From 1970 through 
1976, he served in a number of combat arms assignments, both in the 
United States and overseas, including a second tour in South Vietnam as 
a military advisor. Because of previous combat-related injuries in 
Vietnam, he was honorably discharged from active duty. However, in late 
1976, because of his previous assignments as a foreign military liaison 
officer, he accepted a position as a U.S. Army military liaison officer 
in the Republic of Panama, serving until 1984.
    From 1984 until his retirement from federal service in January 
2001, he served honorably with the Department of Justice's Drug 
Enforcement Administration, INTERPOL (U.S. National Central Bureau), 
and the Immigration and Naturalization Service. He recently retired as 
Inspector General of the Selective Service System, headquartered in 
Rosslyn, Virginia. He has myriad awards and commendations from U.S. and 
foreign agencies for his civil and military service.
    As a U.S. naturalized citizen of this country, he has been honored 
by the Washington, DC ``American Immigration Lawyers Association and 
Foundation'' for his past contributions in the military. Washington's 
CATO Institute honored Mr. Rascon in its publication titled: ``In 
Defense of Nation: The Contributions of Immigrants.'' He was named one 
of the 200 most influential Hispanics in America by Hispanic Magazine. 
FOX Family Channel featured him in its premier showing of ``Courage'' 
featuring heroes from all walks of life.
    He is a ``Distinguished Member of the 503d Infantry Regiment,'' a 
Department of the Army initiative preserving and enhancing Army 
traditions through inspirational role models of present and past 
members of the Regiment. He is an inductee in the Army's Officer 
Candidate School Hall of Fame.
    He is married to the former Carol Lee Richardson, and has two 
children. He holds degrees in Management and Liberal Studies.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Alfred V. 
Rascon in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Alfred Rascon, Alfred V. Rascon, Alfredo V. Rascon and Alfredo 
Rascon-Velazquez.

    2. Position to which nominated:
    Director, Selective Service System.

    3. Date of nomination:
    April 30, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 10, 1945; Chihuahua, Mexico.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Carol Richardson-Rascon (nee Richardson).

    7. Names and ages of children:
    Amanda V. Rascon, age 13; Alan V. Rascon, age 10.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Bachelor of Science in Liberal Arts, Excelsior (Regents) College, 
University of New York (June 2001) and Bachelor of Science, Management, 
California Coast University (June 1985), California.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1995 to January 2001, Inspector General, Selective Service System, 
National Headquarters, Arlington, Virginia.
    1990 to 1995, Senior Special Agent, U.S. Department of Justice, 
Immigration and Naturalization Service, Headquarters, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Intelligence Operations Specialst, U.S. Drug Enforcement 
Administration; Supervisory Intelligence Research Analyst, Drug 
Financial Terrorist Section, INTERPOL, U.S. Central Bureau, Washington, 
DC.; Intelligence Liaison Officer to Republic of Panama Military; 1976 
to 1984; U.S. Army Intelligence Officer from 1970 to 1976.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life member Congressional Medal of Honor Society; Distinguished 
member of the 503d Infantry Regiment; Life member: Society of the 173d 
Airborne Brigade; 82nd Airborne Association; VFW; American Legion: 
Vietnam Veterans of America; 187 Airborne Battle Group.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Military: Congressional Medal of Honor, Bronze Star with cluster, 
Air Medal, Purple Heart with cluster, Good Conduct Medal, Master 
Parachutists' Badge, Combat Medal Badge plus other U.S. military 
commendations. Republic of Vietnam: Gallantry Cross with Palm, 
Gallantry Cross with Silver Star, Honor Medal and Staff Service Medal. 
Honorary member of the 503 Infantry Regiment. 1997 American Immigration 
Lawyers and American Immigration Law Foundation Immigrant Achievement 
Award for outstanding contributions to our Nation. 2000 Soldier of the 
Year award, Veterans of Foreign Wars. Numerous other civic and national 
awards for military service.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Alfred V. Rascon.
    This 8th day of May, 2001.

    [The nomination of Alfred V. Rascon was reported to the 
Senate by Senator John Warner on May 21, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 22, 2001.]


 NOMINATIONS OF DOUGLAS JAY FEITH TO BE UNDER SECRETARY OF DEFENSE FOR 
 POLICY; DR. JACK DYER CROUCH II TO BE ASSISTANT SECRETARY OF DEFENSE 
FOR INTERNATIONAL SECURITY POLICY; AND PETER W. RODMAN TO BE ASSISTANT 
        SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

                              ----------                              


                         TUESDAY, JUNE 5, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Santorum, Roberts, Allard, Sessions, Levin, Kennedy, Cleland, 
Reed, Akaka, Bill Nelson, E. Benjamin Nelson, and Carnahan.
    Other Senators present: Senators Specter and Bond.
    Committee staff members present: Romie L. Brownlee, staff 
director; Judith A. Ansley, deputy staff director; Anita R. 
Raiford, deputy chief clerk; and Scott W. Stucky, general 
counsel.
    Professional staff members present: Charles W. Alsup, 
Edward H. Edens IV, Brian R. Green, Mary Alice A. Hayward, 
Ambrose R. Hock, George W. Lauffer, Patricia L. Lewis, Joseph 
T. Sixeas, Cord A. Sterling, and Richard F. Walsh.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Madelyn R. Creedon, minority 
counsel; Richard D. DeBobes, minority counsel; Peter K. Levine, 
minority counsel; Evelyn N. Farkas, professional staff member; 
and Richard W. Fieldhouse, professional staff member.
    Staff assistants present: Beth Ann Barozie, Kristi M. 
Freddo, and Michele A. Traficante.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; James 
P. Dohoney, Jr., assistant to Senator Hutchinson; David Young, 
assistant to Senator Bunning; Menda S. Fife and Sharon L. 
Waxman, assistants to Senator Kennedy; Frederick M. Downey, 
assistant to Senator Lieberman; Andrew Vanlandingham, assistant 
to Senator Cleland; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi and Richard Kessler, assistants to 
Senator Akaka; Peter A. Contostavlos, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Neal 
Orringer, assistant to Senator Carnahan; and Brady King, 
assistant to Senator Dayton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The hearing will come to order. Thank you. 
The committee meets today to receive testimony and have the 
opportunity to place questions to our distinguished panel of 
nominees. We have before us this morning the nominees who will 
play a vital role in the policy of the Office of the Secretary 
of Defense, assuming Senate confirmation. This is an excellent, 
well-experienced team assembled by Secretary Rumsfeld, and I 
commend him.
    Douglas Jay Feith has been nominated to be Under Secretary 
of Defense for Policy. Dr. Jack Dyer Crouch II, has been 
nominated to be Assistant Secretary of Defense for 
International Security Policy, Peter W. Rodman has been 
nominated to be Assistant Secretary of Defense for 
International Security Affairs. We welcome our nominees and 
their families.
    Mr. Feith, will you kindly introduce your family to the 
commitee this morning?

 STATEMENT OF DOUGLAS JAY FEITH, NOMINEE TO BE UNDER SECRETARY 
                     OF DEFENSE FOR POLICY

    Mr. Feith. Thank you, Mr. Chairman. I am accompanied today 
by my father, Doug Feith; my brother, Donald Feith; and my 
children, Daniel, David, and Dafna. Unfortunately, my wife 
could not be here this morning. We also have a 5-year-old, 
Dore, who mercifully decided not to come.
    Chairman Warner. We understand that, but she is here in 
spirit, because these positions--having had the privilege of 
serving in the Department myself--the families are very key to 
your daily operations. Their support is essential, as is their 
understanding for the long hours involved. It is difficult on 
the families.
    Dr. Crouch, we welcome you. We know you are a long way from 
Southwest Missouri State University, where your family is at 
this present time, and again we thank you for your willingness 
to serve our Nation in this important position.
    Now, Mr. Rodman, I understand that your wife is here. Would 
you be kind enough to introduce your family to the committee?

STATEMENT OF PETER W. RODMAN, NOMINEE TO BE ASSISTANT SECRETARY 
         OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Mr. Rodman. Thank you very much, Mr. Chairman. I have my 
wife, Veronique Rodman; my daughter, Theodora; and my son, 
Nicholas.
    Chairman Warner. We welcome you today.
    Mr. Feith, if confirmed, you will be returning for a second 
tour at the Department of Defense. You served as Deputy 
Assistant Secretary of Defense for Negotiations Policy in 1984, 
and as such were responsible for policy related to various arms 
control negotiations, including those on conventional force 
reductions, chemical and biological weapons, nuclear testing, 
and nuclear nonproliferation issues. Prior to that, you served 
on the staff of the National Security Council under President 
Ronald Reagan and, of course, you have had a distinguished 
career as a counselor. We congratulate you on the President's 
selection.
    Mr. Feith. Thank you.
    Chairman Warner. Dr. Crouch, if confirmed, you will also be 
returning to the Department of Defense. From 1990 to 1992, you 
served as Principal Deputy Assistant Secretary of Defense for 
International Security Policy. Prior to that service, you 
worked for the U.S. Arms Control and Disarmament Agency, and 
you were an advisor to the U.S. delegation on nuclear space 
talks with the Soviet Union. You are currently Associate 
Professor of Defense and Strategic Studies at Southwest 
Missouri State University in Springfield, Missouri.
    Mr. Rodman, if confirmed, you will also bring a wealth of 
experience and accomplishments to the Pentagon. You were a 
close advisor to Dr. Kissinger on the staff of the National 
Security Council from 1972 to 1977, and Director of the 
Department of State's policy planning staff from 1984 to 1986 
under Secretary Schultz. You then served as Special Assistant 
to Presidents Reagan and Bush for National Security Affairs, 
and as counselor to the National Security Council. That is a 
very distinguished career.
    It is a pleasure to have such qualified nominees before 
this committee. I believe each of you will excel in the 
positions to which you have been nominated, if confirmed by the 
Senate. We welcome you and your families.
    Before we hear from the nominees, Senator Levin has some 
remarks.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, thank you. I join you in 
welcoming our witnesses to the committee this morning. I also 
want to thank their families for being here since, as you point 
out, family support is essential in each of these positions 
where people serve our Nation.
    America's foreign and national security policy have always 
benefitted when leaders from different parties have worked 
together across the political aisle. This committee has a long 
tradition of bipartisanship, and when the legislative and 
executive branches work in a cooperative manner, we make our 
military stronger and we make our Nation more secure.
    I have reviewed the records of our nominees. I have a 
number of concerns about some of the positions which some of 
them have taken, particularly in their public writings. I look 
forward to exploring those positions with them this morning. It 
seems to me that some of the positions are not even consistent 
with the administration's positions in a number of areas, and I 
particularly want to explore those areas as well.
    So, Mr. Chairman, we are moving on these nominations. As 
our chairman, I believe you have pressed this committee and the 
Senate to expeditiously address these nominations at hearings, 
to then bring those nominations, which have been approved by 
this committee in an extraordinarily expeditious fashion, to 
the floor. I think that bodes well indeed, and I think 
everybody is grateful for your leadership in this.
    Chairman Warner. Senator Levin, I thank you for your 
comments. We have as a team, and as a committee, acted as 
quickly as we could on these nominees.
    Senator Specter, will you kindly proceed with respect to 
your nominee?

STATEMENT OF HON. ARLEN SPECTER, U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Yes, thank you very much, Mr. Chairman. It 
is a pleasure and a privilege to appear before this 
distinguished committee. I am interested to note at this early 
hour, just a few minutes after convening, so many members of 
the committee are here. That is a tribute to the committee.
    I am here for the purpose of introducing Douglas J. Feith, 
a man whom I have known since he was a youngster through 
association with his father, Doug Feith, who I have known for 
30 years or more.
    Just a word about Douglas Feith's family background. Doug 
Feith came to the United States from Eastern Europe, where he 
survived the Holocaust, one of nine children. His older sister 
went to Israel in 1933 and was spared. Doug Feith was a member 
of Menachim Begin's Youth Group, and avoided the fate of some 6 
million Jews who were killed in the Holocaust, and came to the 
United States and has been a Philadelphian for many years. I 
have known him and noted his community activities and his very 
solid citizenship. He has produced a very wonderful family, a 
great American story, 10 grandchildren, and his son, Douglas 
Feith, is now up for a very important position.
    Douglas Feith brings an outstanding academic and 
professional background to this position. He received his 
bachelor's degree magna cum laude from Harvard in 1975 and a 
law degree, again magna cum laude, from Georgetown University 
Law Center, and has been characterized among those who know him 
as a brilliant academician.
    He has extensive experience in the field, having served in 
1981 and 1982 on the staff of the National Security Council as 
a Middle East Specialist. Then from 1982 to 1984 he was Special 
Counsel to the Assistant Secretary of Defense, Richard Perle, 
and in 1984 he was appointed Deputy Assistant Secretary of 
Defense for Negotiations.
    He is a real intellectual, with very extensive practical 
experience. His writings have appeared on international law and 
foreign defense policy in some of the country's leading 
publications. He is currently the managing partner of the law 
firm of Feith & Zell, which he founded in 1986, so he brings a 
very rich background to this very important position. I am 
pleased to be here for a few moments this morning to commend 
him to you and urge his confirmation.
    Chairman Warner. Senator, we welcome you before this 
committee, and we thank you for your observations about our 
attendance; we are a strong committee. We thank you for this 
very interesting biographical sketch that you have given of the 
entire family. Indeed, it is a family that has greatly 
contributed to our country and shall continue to do so.
    Now, one of our valued committee members, Senator Santorum, 
would also like to speak.

               STATEMENT OF SENATOR RICK SANTORUM

    Senator Santorum. Thank you, Mr. Chairman. I do not want to 
repeat all of the comments of my senior colleague. That is one 
of the things about being a junior Senator, you just get to say 
``me too'' a lot. Senator Specter has done a marvelous job in 
detailing Doug and his terrific family and their great 
contributions to Southeastern Pennsylvania, and Doug's 
contributions here to the Washington, DC, area since he has 
been located here after his years of Government service. I want 
to mention, too, that he was awarded the highest civilian award 
within the Department of Defense, the Distinguished Public 
Service Medal.
    This is a man who has great integrity, great intellect, and 
a great passion to serve this country. I know he will do an 
outstanding job with the Department of Defense, and it is an 
honor to be able to be here to introduce you to the committee, 
Doug. Thank you for being here.
    [The prepared statement of Senator Santorum follows:]
              Prepared Statement by Senator Rick Santorum
    Chairman Warner, and members of the committee, I am pleased to have 
the opportunity this morning to introduce Douglas Jay Feith.
    Mr. Feith appears before us today as President Bush's nominee for 
the Under Secretary of Defense for Policy.
    A native of Philadelphia, Pennsylvania, Mr. Feith has a long and 
proud history of public service to this country. In 1981, he served on 
the staff of the National Security Council as a Middle East specialist, 
working primarily on Arab-Israeli, Persian Gulf and energy security 
issues. From 1982 to 1984, he was Special Counsel to Assistant 
Secretary of Defense Richard Perle.
    In 1984, Mr. Feith was appointed Deputy Assistant Secretary of 
Defense for Negotiations Policy. In that position, he was responsible 
for policy for various arms control negotiations, including those on 
conventional forces, Confidence and Security Building Measures in 
Europe, chemical and biological weapons, nuclear testing, nuclear non-
proliferation issues and East-West political relations. For his 
dedicated service, Douglas Feith was awarded the Department of 
Defense's highest civilian award, the Distinguished Public Service 
Medal.
    The recipient of an A.B. degree magna cum laude from Harvard 
College and a J.D. degree magna cum laude from the Georgetown 
University Law Center, Douglas Feith has published extensively on 
matters of international law and on foreign and defense policy. His 
writings have appeared in the New York Times, the Washington Post, The 
Wall Street Journal, the New Republic and elsewhere.
    Currently, Douglas Feith is the Managing Attorney of the law firm 
Feith & Zell, P.C. of Washington, D.C., which he founded in 1986. In 
addition, Mr. Feith now serves as the President of the Charles E. Smith 
Jewish Day school, a K-12 school with 1,400 students.
    I believe Mr. Feith's 20-plus years of professional experience and 
public service to this Nation leave him well suited to the demanding 
tasks which he will face in the coming years, including providing the 
Secretary and Deputy Secretary of Defense with advice on the formation 
of policies to address 21st century threats.
    With that, Mr. Chairman, thank you for the opportunity to offer a 
few words on behalf of Mr. Feith, and I urge the committee to give his 
nomination every due consideration.

    Mr. Feith. Thank you, Senator.
    Chairman Warner. Thank you very much, Senator Santorum, and 
again your comments and observations are of great value to the 
committee.
    Senator Bond, I understand that you join us this morning 
for purposes of your endorsement of one of the candidates.

 STATEMENT OF HON. CHRISTOPHER ``KIT'' BOND, U.S. SENATOR FROM 
                            MISSOURI

    Senator Bond. Mr. Chairman, members of the committee, I 
thank the committee for this opportunity. It is a pleasure to 
appear before you and to see so many members of the committee 
here.
    My pleasure this morning is to present and commend to you 
the nomination of my good friend, J.D. Crouch II, who is a 
Ph.D. and a fellow Missourian. He received his doctoral degree 
in international relations from the University of Southern 
California. He has published numerous articles on such topics 
as ballistic missile defense, the ABM Treaty, nuclear testing, 
and U.S.-European relations.
    As the chairman noted, from 1984 to 1986 he worked as 
Assistant Director for Strategic Programs of the U.S. Control 
and Disarmament Agency, and was an advisor to the U.S. 
delegation on nuclear and space arms talks with the former 
Soviet Union. He is no stranger to the longer-tenured members 
and staff of this committee, having served from 1986 to 1990 as 
military legislative assistant to Senator Malcolm Wallop and 
staff designee to this committee.
    After that, from 1990 to 1992, he was Principal Deputy 
Assistant Secretary of Defense for International Security 
Policy in the first Bush administration. He currently is 
Associate Professor of Defense and Strategic Studies at 
Southwest Missouri's State University, and I would say he has 
been a valuable advisor informally to me on defense matters.
    I also want to point out in addition to his outstanding 
Government service, his academic background and his publication 
of numerous articles. He has very solid grounding in the real 
world. He serves as a Reserve deputy sheriff in Christian 
County, Missouri, a member of the multi-county special response 
team, and lives in Nixa, Missouri, home of the world-famous 
Nixa Succor Day Fish Fry. Should any of you wish to be further 
advised on it, he is, I understand, an expert on succor-
digging, which is a very important sport in Southwest Missouri, 
and he has that additional background.
    I do believe his experience, both in academia and 
Government, well-qualify him for this position, and it is my 
hearty recommendation that the committee act favorably on his 
nomination.
    Chairman Warner. Thank you very much, Senator. That insight 
into the candidate and also your endorsement is of great value 
to the committee. We thank you very much.
    Senator Carnahan, we understand you would like to make a 
few comments.

               STATEMENT OF SENATOR JEAN CARNAHAN

    Senator Carnahan. Yes, thank you, Mr. Chairman.
    I want to welcome this distinguished panel today. It is 
especially rewarding to have with us today a nominee from the 
State of Missouri for the position of Assistant Secretary of 
Defense for International Security Policy. This position has a 
wide range of responsibilities, ranging from developing 
regional defense policies to overseeing international security 
cooperation.
    With such a wide variety of duties, we are fortunate to 
have a nominee with such a diverse background. Dr. Crouch hails 
from, as Senator Bond pointed out, the great Town of Nixa, but 
he is also well-known in Washington and in the security policy 
debate. Not only did he serve as Principal Deputy Assistant 
Secretary for International Security Policy (ISP) in the 
previous Bush administration, but he has worked on arms control 
and defense policy in Congress and the executive branch.
    What is truly extraordinary is Dr. Crouch's accomplishments 
outside of the beltway, miles away in his beautiful mountain 
valley Town of Nixa. Dr. Crouch devotes 20 hours a month to 
Christian County as a reserve sheriff, he is a full-time 
graduate professor at Southwest Missouri State, he is cofounder 
of a groundbreaking Internet company, and has helped raise his 
two kids along with his wife, Kristin.
    I was truly impressed to learn that last year he saved a 
man's life by pulling him from a burning car wreck and treating 
him for shock until medics arrived, and for his valiant heroics 
he earned the honor of reserve deputy of the year. I am glad to 
see that the President has honored Missouri in selecting Dr. 
Crouch for this crucial post in the administration.
    I know that this hearing will serve as a meaningful hearing 
for discussing the views of Dr. Crouch and the other panelists 
before this committee, and I will look forward to hearing the 
testimony and thank the chairman for allowing me the privilege 
of introducing my fellow Missourian.
    Chairman Warner. You are a very valued member of this 
committee, and that was an extremely well-spoken and forceful 
endorsement of this distinguished nominee.
    Senator Carnahan. Thank you, Mr. Chairman.
    Chairman Warner. We thank you very much.
    At this time, I insert for the record the opening statement 
of Senator Strom Thurmond.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman.
    Mr. Feith, Dr. Crouch, Mr. Rodman, congratulations to each of you 
on your nomination. The fact that you are appearing before this 
committee this morning speaks highly of your credentials and the faith 
that both the President and Secretary Rumsfeld have in your ability to 
take on the challenges of the office for which they have nominated you. 
I wish you success and urge you to keep an open dialogue with this 
committee.
    Thank you, Mr. Chairman.

    Chairman Warner. The committee, in accordance with its 
procedure, has asked a series of policy questions of each of 
our nominees. Their responses to those questions will be placed 
in the record at the appropriate location without objection.
    I have also, together with my distinguished Ranking Member, 
examined a series of documents forwarded as a matter of routine 
from the White House counsel, and we likewise find those to be 
in order.
    Now I shall ask questions which were propounded by this 
committee to each of the nominees. Have you assumed any duties 
or undertaken any actions which would appear to presume the 
outcome of the confirmation process?
    Dr. Crouch. No, sir.
    Mr. Rodman. No, sir.
    Mr. Feith. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in the hearings?
    Dr. Crouch. Yes, sir.
    Mr. Feith. Yes, sir.
    Mr. Rodman. Yes.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Crouch. Yes, sir.
    Mr. Feith. Yes.
    Mr. Rodman. Yes.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisals for their testimony or briefings to the 
Congress of the United States?
    Dr. Crouch. Yes, sir.
    Mr. Feith. Yes.
    Mr. Rodman. Yes.
    Chairman Warner. Thank you very much.
    I must depart to join our Majority Leader. We have some 
matters we have to address today. I hope to return before this 
hearing is concluded, but in my absence, my distinguished 
colleague from Oklahoma will preside, together with the Ranking 
Member. We will now open this series of nominations with Mr. 
Feith. Will you start off? Thank you very much.
    Mr. Feith. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Levin, and other members of the Armed 
Services Committee, given the size of the panel and the 
shortness of time, I would like to dispense with any formal 
opening statement. I would like to say, however, that I am 
honored to appear before you, and I thank President George W. 
Bush for nominating me and the Secretary of Defense, Donald 
Rumsfeld, for supporting me for the position of Under Secretary 
of Defense for Policy.
    To serve our country in such a capacity is an exhilarating 
and gratifying prospect. If confirmed, I will work to help keep 
the United States strong and at peace with healthy ties to our 
allies and friends abroad. I would also like to express my 
thanks to Senator Specter and Senator Santorum for their 
kindness in introducing me. I look forward to the committee's 
questions. Thank you.
    Senator Inhofe. Thank you, Mr. Feith.
    Dr. Crouch.
    Dr. Crouch. Thank you, Mr. Chairman, Senator Levin, members 
of the Senate Armed Services Committee, distinguished 
colleagues, and honored guests. I, too, will be extremely 
brief. I know the committee is interested in getting to 
questions. I want to state that it is quite a pleasure and an 
honor to be before this committee seeking confirmation for the 
position of Assistant Secretary of Defense for International 
Security Policy.
    Among my fondest memories of Government were the 4 years I 
spent here, working for the United States Senate and supporting 
Senator Wallop on this committee. While a great many things 
have changed in the world since those days, the bipartisan 
spirit in which this committee works towards the advancement of 
the national security of the United States remains. If 
confirmed, I look forward to working closely with the committee 
and its staff towards those shared goals.
    I would also like to thank both Senator Carnahan and 
Senator Bond for their very gracious introduction of me this 
morning. I would like to express my gratitude and my 
appreciation to the President and Secretary Rumsfeld for the 
confidence they have shown in me in making this nomination.
    If confirmed, I will return to public service from private 
life eager to tackle the challenges and issues that confront 
the Department of Defense, this committee, and the Nation. 
There is much to do, and we must all work together to get it 
done.
    Finally, I would like to thank my many friends, and 
especially my family--my wife, Kristin, my daughter, Lara, and 
my son, Jake--who could not be here today, for the support and 
encouragement that they have given me in seeking this 
opportunity.
    Thank you, Mr. Chairman, and I look forward to answering 
the committee's questions.
    Senator Inhofe. Thank you, Dr. Crouch.
    Mr. Rodman.
    Mr. Rodman. Thank you. In the same spirit, I want to thank 
Chairman Warner, Senator Levin, and all the members of this 
committee for your courtesy to us all this morning. I am deeply 
honored that President Bush and Secretary Rumsfeld have chosen 
to nominate me for what is one of the most exciting jobs, I 
think, in the U.S. Government. If I am confirmed in that 
position, I look forward to working with this committee in the 
spirit that was expressed earlier by Chairman Warner and 
Senator Levin, the spirit of bipartisanship.
    There are some issues so vital to our Nation that we cannot 
be effective in meeting those challenges unless Congress and 
the President are working together, and the parties are working 
together, so I look forward, if I am confirmed, to working with 
this committee to meet the challenges that lie ahead of us all.
    Thank you very much.
    Senator Inhofe. Thank you, Mr. Rodman.
    I would ask members of the committee to try to hold their 
remarks and their questions to 6 minutes, so perhaps we can get 
another round in, but I am not sure we will be able to do that.
    We will start with Senator Levin.
    Senator Levin. Mr. Chairman, thank you. First, Mr. Feith, 
let me ask you about a memorandum of January 1999. This is what 
you wrote relative to the Antiballistic Missile (ABM) Treaty's 
existence. Quote, following the extinction of the Union of 
Soviet Socialist Republics, the Antiballistic Missile Treaty of 
1972 did not become a treaty between the United States and the 
Russian Federation. Rather, as a bilateral nondispositive 
treaty, the ABM Treaty of 1972 between the United States and 
the USSR ceased to exist, close quote.
    Now, is it your opinion that the ABM Treaty has ceased to 
exist, that it is not in force, and that neither the United 
States nor Russia have any obligation under it or are bound by 
it?
    Mr. Feith. Senator Levin, I stand by the legal analysis 
that you cited. President Bush has made it clear that this 
administration is going to continue to adhere--is adhering to 
the terms of the ABM Treaty. He has also stated that in order 
to create the missile defenses that he is intent on creating to 
protect the United States and our troops abroad and our allies 
and friends, we are at some point going to have to move beyond 
the constraints of the ABM Treaty.
    The decision on when the United States would do that, and 
how it would be done, and after consultations with whom, those 
issues remain open, and the decisions will be made by the 
President, and I will be pleased to support the President's 
policy.
    Senator Levin. Does it remain your opinion, however, that 
the ABM Treaty no longer exists? Is that your opinion?
    Mr. Feith. As I said, the analysis that I wrote, I believed 
and I think it is correct, but the United States can continue 
to adhere to the terms of the ABM Treaty, as the President has 
said he is doing.
    Senator Levin. Is it also, then, your opinion that all 
other bilateral, nondispositive treaties between the USSR and 
the United States no longer exist?
    Mr. Feith. Under the doctrine that was cited in that 
lengthy legal memorandum to which you have referred, that would 
apply to the bilateral, nondispositive agreements. It 
specifically applies to those agreements that were approved by 
the Senate.
    In other words, nothing prevents the executive branch from 
making with Russia the agreements that the executive branch 
made with the Soviet Union, and just continuing those 
agreements. The essence of what I was saying in that legal 
memorandum is that if the United States wants to remake an 
agreement with the Russian Federation that we had with the 
Soviet Union, the United States Government can do that, but the 
Senate has a very important role in treaty-making, and an 
agreement like that can be made with the Russian Federation 
only if the Senate has given its advice and consent to 
ratification.
    Senator Levin. I want to just go through a number of 
bilateral, nondispositive agreements with you that were made 
when the Soviet Union existed and ask you whether or not, then, 
they no longer exist, as you just testified, in the absence of 
their being reentered into by this current or by a subsequent 
administration to the collapse of the Soviet Union.
    An agreement relating to the privileges and immunities of 
all members of our embassies and their families that was 
entered into in 1978, did that cease to exist when the Soviet 
Union ceased to exist, in the absence of it being remade 
between a subsequent American administration and Russia?
    Mr. Feith. Senator, that treaty does not appear on the 
rather short list of treaties that it is my understanding were 
fitted within those terms, in other words, bilateral, 
nondispositive agreements that were approved by the Senate.
    Senator Levin. If there was an agreement made by the 
executive branch which was nondispositive, as you phrased it, 
and bilateral, you just said that that agreement would have to 
be remade, and what I am saying is, if there was not a 
subsequent treaty or agreement after the collapse of the Soviet 
Union, is it then not your position that, in the absence of 
that agreement being reentered into, that it no longer exists?
    Mr. Feith. This question that you are raising about the 
succession of those agreements is often handled by informal 
processes between the Government, and the decision of the 
executive branch to maintain those agreements is often 
considered effective in maintaining them.
    Senator Levin. In the absence of such an explicit decision, 
have those agreements all lapsed?
    Mr. Feith. I think the position that the United States 
Government has taken was to continue agreements that it could 
continue with Russia, and so I believe that the executive 
agreements, as opposed to the treaties that received Senate 
approval, in most cases I would suppose--I am not an expert on 
the long list of those agreements, but I believe that the 
general position is that they continued, by choice of the 
executive branch.
    Senator Levin. So that in summary, then, the treaties, in 
your opinion, have all lapsed if they are bilateral, 
nondispositive treaties.
    Mr. Feith. That is what this 250-year-old doctrine says.
    Senator Levin. That is your current legal opinion?
    Mr. Feith. That is the legal opinion that I wrote. I think 
it is worth noting that if I am confirmed, Senator, for this 
position, I will be providing policy advice and not legal 
advice to the Secretary of Defense. But the legal memorandum 
cited a venerable legal doctrine that says that such bilateral 
agreements lapse by operation of law when one of the two 
parties becomes extinct.
    Senator Levin. It is a simple question. Does that remain 
your current opinion?
    Mr. Feith. Yes. I stand by the analysis that I wrote.
    Senator Levin. My time is up. Thank you.
    Senator Inhofe. Thank you, Senator Levin.
    Mr. Feith, why don't you just take a few moments here and 
outline your past experience in negotiating and implementing 
arms control agreements.
    Mr. Feith. Mr. Chairman, I think that arms control 
agreements can and do serve our national interests. Each 
proposed treaty or unilateral action in this field, I believe, 
needs to be evaluated to determine whether its net effect is 
positive. The kinds of considerations for a proposed treaty or 
agreement that I think are relevant is whether it serves the 
national interest, whether its goal is in the national 
interest, whether its terms will accomplish its purpose, 
whether it is verifiable, how likely is it that we will be able 
to enforce its compliance if the treaty is violated, and if 
there are collateral benefits of the treaty even if other 
parties violate it.
    In the work that I did in the Government, I helped bring 
into being some arms control agreements, in particular the 
missile technology control regime and the Stockholm agreement 
on what was called confidence and security-building measures in 
Europe. It was essentially about notification of military 
exercises.
    I also played a role in the Dayton peace negotiations. I 
think there are a number of arms control agreements that have 
well-served the national interest, and there are others that I 
have been critical of. I think that this is something that has 
to be handled in a nonideological, pragmatic fashion, weighing 
the merits of each case.
    Senator Inhofe. Thank you, Mr. Feith.
    Recently, a new word has appeared in a characterization. 
The Bush administration has been called unilaterialist, because 
it has expressed a concern about some treaties such as the 
Kyoto Treaty and the ABM Treaty that are supported by some of 
our adversaries as well as some of our allies. Whereas I 
believe we should work with our allies and other countries to 
gain their support, I do not believe we should allow them to 
keep American families at risk as new threats emerge.
    How should we approach these countries to gain their 
support in modifying existing arms control agreements where 
necessary, and what action should we take if such support 
cannot be achieved?
    Mr. Feith. Mr. Chairman, I believe that an important 
element of our strength as a Nation is the set of 
relationships, the set of treaty ties we have with allies and 
other ties that we have with our friends abroad. If confirmed, 
I would devote myself to keeping those relationships healthy 
through consultations and cooperation.
    Unilateralism, or isolationism, in my view, would not serve 
us well as a national security policy. What President Bush has 
said is that he will always act in a way that he believes 
serves the U.S. national interest even if he believes that 
other countries prefer that he acts differently, and I think 
that is sensible. I do not, in fact, see how any President 
could declare otherwise. But that does not mean that the Bush 
administration is unilateralist. It does not mean that the 
administration prefers to act alone. In my view, I think it is 
clear that this administration values our alliances, and 
appreciates the importance of creating as broad a base as 
possible of support for U.S. policies.
    Senator Inhofe. I am going to read some quotes that go back 
to 1995, and I could have started earlier, but because of the 
constrictions of time it is not possible, and the CIA reports 
the weapon proliferation threat of 1995 is at least 20 
countries--this is 1995. At least 20 countries, nearly half of 
them in the Middle East and South Asia, already have or may be 
developing weapons of mass destruction and ballistic missile 
delivery systems. Five countries, North Korea, Iran, Iraq, 
Libya, and Syria, pose the greatest threat because of the grave 
nature of their weapons of mass destruction programs. All five 
already have or are developing ballistic missiles that could 
threaten the United States.
    Three years later, this is General Chuck Horner, who was 
the Director of the Desert Storm Air Command, quote: we need 
missile defenses now. Every day we delay deployment encourages 
our potential enemies to develop or acquire long-range 
missiles. I know first-hand that a ballistic missile is an 
ultimate form of terror. We could not stop them during 
Operation Desert Storm, and we cannot stop them now, end quote.
    In 1998, when we had the commission that I think had 
probably the nine greatest, most qualified experts in this 
field, they said the United States might well have little or no 
warning before operational deployment. This reflects the 
reality of an environment in which there may be little or no 
warning.
    Then, when General Welch was before our committee, Senator 
Levin, he was asked some questions, and he talked about the 
deterrence that we have and how this has changed in recent 
times. He said we had confidence in deterrence in the past 
because we understood those that we were deterring. We had high 
confidence that we knew what they valued, and we had high 
confidence that we knew how to hold that at risk, and I have to 
tell you, I have no such confidence regarding the kind of 
threats we face today. I simply do not know what deters those 
particular kinds of threats.
    Henry Kissinger, who was the architect of the ABM Treaty, I 
can remember not too long ago he made the statement that it is 
nuts to make a virtue out of our vulnerability.
    In light of all of these experts, in the last 7 years, 
talking about the nature of the threat that is out there, about 
the fact that we have to develop as soon as we can possibly 
develop and deploy a national missile defense system, can any 
of the three of you think of any reason we should not proceed 
with that deployment? Why don't you each respond.
    Dr. Crouch. I believe that the President has made it clear 
that he believes that missile defense is going to be an 
important component of our overall defense strategy in dealing 
with the kinds of emerging threats that you have well outlined, 
Senator, and if confirmed, I would strongly support the 
administration's efforts to do that, and so I absolutely think 
it is vital.
    I think one of the interesting paradigm shifts, if you 
will, that we are in from the Cold War to this period is that 
we are now in a position where we may have to determine whether 
other countries may be deploying ballistic missiles and weapons 
of mass destruction that will deter the use of American 
military capability, and the key aspect, a key example of that, 
it seems to me, was the Operation Desert Storm situation. What 
would have happened if Saddam Hussein had had a weapon of mass 
destruction, particularly a nuclear weapon, on top of those 
missiles?
    Senator Inhofe. My time has expired, and I would only 
comment that he made it very clear after that was over, he 
said, if we had waited 10 years to go into Kuwait, America 
would not have come in. We would have had the ability to deploy 
such a missile.
    Just a real quick response, the other two.
    Mr. Feith. I agree with what Dr. Crouch just said, and I do 
think it is wise that the President has resolved to create 
missile defenses.
    Senator Inhofe. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you. Mr. Feith, you are familiar 
with what Secretary of State James Baker said--was he incorrect 
in January 1992, when shortly after the collapse of the Soviet 
Union he said, ``I made the point to President Yeltsin that the 
United States remains committed to the ABM. We expect the 
States of the Commonwealth to abide by all the international 
treaties and obligations that were entered into by the former 
Soviet Union, including the ABM Treaty.''
    Mr. Feith. Senator, I think that that was an expression of 
a desire to maintain a number of the----
    Senator Kennedy. Let me state it again. I am asking you 
whether it is correct that he said, ``I made the point to 
President Yeltsin the United States remains committed to the 
ABM. We expect the States of the Commonwealth to abide by all 
the international treaties and obligations that were entered 
into by the former Soviet Union, including the ABM Treaty.'' 
Now, was he making a mistake or not, when he made that 
statement?
    Mr. Feith. No.
    Senator Kennedy. So it was not an incorrect statement for 
him to make?
    Mr. Feith. I think it is correct as far as it goes.
    Senator Kennedy. Well, I think it goes--that is fine. That 
is good, with regard to the ABM Treaty.
    Now, Mr. Feith, on the issues of Plan Colombia, concerns 
have been raised about the collusion between the Colombian 
armed forces and the illegal paramilitaries. Given the 
significant funding our country is providing to the armed 
forces, what goals do you think are achievable in Colombia?
    Mr. Feith. Senator, the focus of the Defense Department's 
activities in support of Plan Colombia is assisting the 
Colombian forces in dealing with their counterdrug work. This 
is a very difficult activity. It is performed by the Defense 
Department pursuant to statute, and there is a great 
sensitivity to keeping the focus on what the law would have the 
Department focus on, which is the counterdrug activity, and not 
to be drawn into entry into the civil war in Colombia.
    Senator Kennedy. Do you believe American interests in 
Colombia are worth putting the armed forces personnel at risk?
    Mr. Feith. As I said, this is a judgment that is made as a 
matter of law. Congress has legislated that we are going to 
assist----
    Senator Kennedy. I am trying to find out what your views 
are. What are your views on that issue? Do you think it is 
worth putting the personnel at risk, and then, I am going to 
ask you what about the civilians? Do you think they are? We 
ought to be able to find out what your views are on this Plan 
Colombia.
    Mr. Feith. Senator, there is a national interest in dealing 
with the very serious drug problem. Weighing the different 
factors requires a mastery of the facts of the case that I do 
not yet have. If confirmed, I would be in a position to have an 
independent evaluation of that. I do know that this is an 
obligation, and I do know the Department of Defense is 
fulfilling the statutory requirement.
    Senator Kennedy. Mr. Crouch, in your 1995 article in the 
Journal, ``Comparative Strategy,'' you criticized the Clinton 
administration's policy in North Korea's nuclear weapons 
program and proposed the following steps:

        <bullet> Strengthen U.S. forces stationed in South 
        Korea, in recognition of the threat, to bolster U.S. 
        deterrent;
        <bullet> Redeploy American nuclear weapons to South 
        Korea to demonstrate our nuclear commitment to a U.S. 
        ally and maintain the means at hand to respond to a 
        North Korean attack;
        <bullet> Begin immediate plans with South Korea and 
        Japan to develop and deploy a missile defense adequate 
        to the task of dealing with long-range nuclear-armed 
        missiles;
        <bullet> Set a firm date for destruction of North 
        Korea's nuclear complex and its long-range missile 
        production facilities;
        <bullet> Absent positive, visible steps by the North 
        Korean regime towards this end, authorize destruction 
        of as much of this complex as possible by U.S. and 
        allied air power.

    Would not this be dangerously provocative to a nation that 
already fears aggression from the United States and South 
Korea?
    Dr. Crouch. I remain concerned about the situation in 
Korea, Senator, but I believe that the international situation 
has changed greatly since 1994. At that time, I am sure that 
the committee will remember that tensions on the Korean 
peninsula were running very high. There was a considerable 
uncertainty about the stability of the North----
    Senator Kennedy. Well, you do not support that, then, 
today?
    Dr. Crouch. No. Today, I do not believe that those actions 
would be necessary, because I believe the international 
environment has changed substantially.
    Senator Kennedy. Mr. Feith, you stated that investment in 
the Cooperative Threat Reduction (CTR), the Nunn-Lugar program 
and other U.S. proliferation programs, should not become a 
means by which Russia frees the resources to finance its 
military modernization program. Is there any evidence to show 
that Russia is doing this? Are you advocating elimination of 
the program?
    Mr. Feith. No, on the contrary, Senator, I support the 
program. I think that the destruction of the weapons of the 
former Soviet Union is in the U.S. national interest. I think 
that it is important that the Defense Department select wisely 
the particular programs that we are going to fund with the 
moneys appropriated by Congress, and that we make sure that we 
manage them well, but I strongly support the program in 
principle, and I think that there is much good that comes from 
it.
    Senator Kennedy. Mr. Feith, do you have any reaction, then, 
to the fact that the administration cut $140 million from the 
Department's funding of the CTR program? Do you think it was 
wise to cut that money in their budget proposals?
    Mr. Feith. I may be in error, but I do not believe that the 
Defense Department funding was cut.
    Senator Kennedy. I believe it is the Energy Department. The 
Energy Department cut the program by $140 million. I understand 
that you generally support the program, is that correct?
    Mr. Feith. Yes, I do, sir.
    Senator Kennedy. Dr. Crouch, do you as well?
    Dr. Crouch. Absolutely, sir.
    Senator Kennedy. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Kennedy.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. I want to state 
briefly that I do not think that we can argue with the academic 
or professional qualifications of these three men to hold these 
respective positions, Doug Feith for Under Secretary of Defense 
for Policy, J.D. Crouch for Assistant Secretary of Defense for 
International Security Policy, and Peter Rodman for Assistant 
Secretary of Defense for International Security Affairs. I want 
to thank each nominee for taking the time to drop by my office 
and visit with me personally, and as a result of those 
conversations, I think that they bring a lot to those positions 
and they will be a credit to the administration.
    Mr. Chairman, I would like to thank you for holding these 
hearings, and I look forward to getting them into their jobs as 
soon as possible, as well as moving the three nominees that we 
will be hearing from on Thursday.
    Having said that, Dr. Crouch, the administration is 
contemplating many changes in regards to the export controls, 
and Congress has the Export Administration Act (EAA) on its 
plate at this time. Could you give me your views on export 
controls, and what changes do we need to the system, and then 
your views on the administration's changes on the EAA, if 
possible?
    Dr. Crouch. This is an area, Senator, that I expect I am 
going to need to do some study, if confirmed. It is not an area 
that I have spent a great deal of time studying, but I would 
say the following things. One is, I think that export controls 
are an essential aspect of our national security. I strongly 
support export controls. I also believe that we can do a better 
job in making export controls a facet of our 
counterproliferation policy, but I believe that it is going to 
take both the Department working with this committee and other 
relevant committees in the Senate to do that.
    My understanding of the legislation--and I am again not an 
expert on that legislation, but my understanding of the 
legislation referred to is that the administration supports 
that legislation in its current form, and from what I 
understand of it, I certainly support it in its current form as 
well.
    Senator Allard. Mr. Feith, there is some discussion, I 
believe, as to whether they would move national space policy, 
particularly the issue referring to commercial use in space, 
perhaps, to your area. Do you have any insight on that that you 
can share with the committee?
    Mr. Feith. Senator, the range of export control issues, as 
I understand it, is currently under review, and one aspect of 
that review would be looking at these commercial space issues, 
but they are not being, as I understand it, singled out. There 
is a comprehensive review underway.
    Senator Allard. Do you have any thoughts that you would 
like to share with the committee in that regard?
    Mr. Feith. My general thoughts on export controls are in 
line with those of Dr. Crouch. The problem has become much 
harder lately than it was in the days when I was first exposed 
to the field, almost 20 years ago during the Reagan 
administration.
    During the Cold War, many of the leading technologies were 
military technologies, and they were distinctly military. Now, 
many highly militarily relevant technologies are dual-use, and 
many of the most advanced technologies are in the commercial 
sphere rather than the military sphere, and so many militarily 
significant technologies are very widespread. It makes the 
problem of export controls substantially more difficult than it 
was once upon a time.
    I know that if I am confirmed, we are going to have a lot 
of very hard thinking to do about the best ways to improve the 
export control system. It is a very difficult problem, but it 
is worth a lot of mental effort, because ultimately controlling 
the spread of dangerous technologies is a high priority, in my 
view, a national security interest of the country.
    Senator Allard. Mr. Feith, I would like to hear you talk a 
little bit about your feelings about the advantages of a 
strategic relationship in which both the United States and 
Russia reduce their nuclear arsenals, not as a result of 
negotiated agreements, but as a matter of unilateral policy.
    Mr. Feith. Senator, the President has said that the United 
States is going to make offensive nuclear force reductions. The 
administration, as I understand it, is developing the concept 
of a framework, a new framework of relationships, a new 
framework for the relationship with Russia. The President 
alluded to this in his National Defense University speech.
    The exact nature of that framework, and whether it includes 
agreements or parallel actions or unilateral actions, or a 
combination thereof, is something that is being developed, as I 
understand it now, within the administration in--that is one of 
the subjects that has been the subject of consultations with 
our allies that high-level administration officials recently 
conducted. Secretary Rumsfeld is in Europe right now, and I am 
confident that when he goes to the NATO defense ministerial he 
will be discussing that subject there.
    I think it is too early to say exactly what the context 
will be for those reductions, but the President has made it 
clear that he does not want to retain a larger offensive 
nuclear force than the United States needs, and wants to 
address this subject, together with missile defense issues, in 
a cooperative spirit with Russia.
    Senator Allard. You support the President in that?
    Mr. Feith. I strongly support that.
    Senator Allard. Mr. Chairman, I see my time has expired.
    Senator Inhofe. Thank you, Senator Allard.
    Senator Cleland.
    Senator Cleland. Thank you very much. Thank you, gentlemen, 
for being on the panel today.
    Mr. Feith, were you ever in the American military?
    Mr. Feith. No, sir.
    Senator Cleland. You expect to be the Under Secretary of 
Defense for Policy, but were never in the American military?
    Mr. Feith. If confirmed, yes, sir.
    Senator Cleland. I understand that you have written 
extensively about war and peace. In an article in 1988 in the 
Washington Times, you said, ``If international law is a bad 
joke, if treaties can be violated profitably and with impunity, 
then arms control too becomes a joke, with the laugh being on 
States that comply with treaty obligations.'' Do you still 
think that treaties are a joke?
    Mr. Feith. Senator, I was saying that they should not be a 
joke. I was saying that I take treaties, I take international 
law very seriously.
    I have devoted a large part of my career to studying the 
subject and thinking about it, and I am a strong advocate of 
the United States complying with its treaty obligations, 
entering into treaty obligations with the greatest seriousness 
of mind, because we will and we do, and we should comply with 
our treaty obligations. I was highlighting the fact that 
unfortunately many treaties, excellent treaties, treaties that 
would be a fine thing if they achieved their intended purpose, 
are violated by other countries, and that it is incumbent on 
the United States to do whatever we can to enforce compliance 
with those treaties, lest they become a joke. I was making an 
argument for taking international law and arms control 
agreements seriously. I was not at all mocking them. I was 
saying it is important that nobody mock them.
    Senator Cleland. In 1988 you authored an article in which 
you criticized the effort of President Reagan to put together 
the Intermediate Nuclear Forces Treaty with Russia. That treaty 
passed the Senate by 93 to 5. Did you support that treaty at 
the time?
    Mr. Feith. Yes, I did, Senator.
    Senator Cleland. Let me ask you this. The Chemical Weapons 
Convention, you wrote in 1994 in the New Republic, ``The 
Chemical Weapons Convention is a bad treaty, one that will 
likely increase the risk of chemical warfare around the 
world.'' Do you still believe that?
    Mr. Feith. Senator, I opposed ratification of the Chemical 
Weapons Convention because I did not think it would achieve its 
purpose. Its purpose is one that I strongly supported. I 
testified twice before the Senate Foreign Relations Committee 
on the treaty and said that I strongly supported the purposes 
of the treaty. I would be delighted if chemical weapons were 
abolished from the world.
    There was a serious debate, and reasonable people were on 
both sides of that debate, over the question of whether the 
Chemical Weapons Convention would achieve the result that I 
believe both sides of the debate favored, which was the 
elimination of chemical weapons from the world. I had doubts 
about the treaty's effectiveness, but the treaty is now the law 
of the land and, if confirmed, I would work to make that treaty 
as effective as it can be, because I think that the goal of it 
is entirely admirable.
    Senator Cleland. That treaty was negotiated by President 
Bush.
    Is it your opinion that the ABM Treaty has collapsed, or is 
no longer valid?
    Mr. Feith. Senator, I have written with a colleague of mine 
a lengthy legal memorandum citing a very longstanding 250-year-
old doctrine of international law that says that two-party 
treaties lapse automatically when one of the two parties 
becomes extinct. The President, however, has said that the 
United States is complying with the terms of the ABM Treaty. I 
am happy to support that policy. He has also noted that at some 
point we are going to be moving beyond the constraints of the 
ABM Treaty, and he will be making the decision as to the when 
and how.
    Senator Cleland. With all due respect, if we do not get a 
handle on nuclear weapons, we will all be extinct.
    May I say that you are not hired as the lawyer for the DOD, 
you are hired for policy. Again, to follow up on Senator 
Kennedy's question, was Secretary of State Baker right or wrong 
when he said, ``I made the point to President Yeltsin that the 
United States remains committed to the ABM Treaty.'' Do you 
think we should be still committed to the ABM Treaty, or not?
    Mr. Feith. Secretary Baker said that we were committed, and 
we, as a country, have complied with the terms of the ABM 
Treaty, and continue to do so to this day.
    Senator Cleland. Regarding the Middle East, you not only 
opposed the 1993 and subsequent Oslo Accords between Israel and 
the PLO, but you also suggested that Israel should repudiate or 
abrogate the Oslo Accords. Is that your view?
    Mr. Feith. Senator, that is not quite what I wrote. What I 
was saying about the Oslo Accords is that the goal of the Oslo 
Accords is excellent. If there can be a consensual solution of 
the Arab-Israeli conflict, that will be a major accomplishment, 
highly desirable. It would serve the interests of the 
Palestinians, the Israelis, the United States. The concerns 
that I expressed about the Oslo process had to do with 
systematic violations of the Accords that unfortunately neither 
Israel nor the United States were ever able to remedy, and the 
failure to remedy those violations created an extremely serious 
problem, and unfortunately now we are living with some of the 
consequences of that.
    Senator Cleland. In terms of Iraq, do you still favor a 
strategy of supporting the Iraqi opposition, including 
protection by the United States Air Force and necessary U.S. 
ground troops? Do you think we ought to go into Iraq with 
United States ground troops?
    Mr. Feith. The United States policy on Iraq, Senator, is 
now being looked at. The United States has a strong interest, 
which I know is shared widely on this committee and throughout 
Congress, in facilitating as best we can the liberation of 
Iraq. The exact means that are most appropriate at the moment 
are the subject of review right now.
    Senator Cleland. That is the most disturbing answer of all. 
As somebody who was committed to a ground force effort in 
Vietnam with no particular strategy for winning and no 
particular exit strategy, your answer disturbs me greatly.
    Mr. Chairman, my time is up.
    Senator Inhofe. Thank you, Senator Cleland.
    Senator Roberts.
    Senator Roberts. Mr. Chairman, I would like to pick up on 
several topics raised by the distinguished Senator from 
Massachusetts, and I am sorry that he has left the hearing. I 
want to talk about the $100.4 million reduction in the budget 
on the CTR programs, the IPP programs, the NCI programs, the 
ISTC programs. That is an explosion of acronyms. Those are all 
the programs that we have under the Department of Energy (DOE) 
and the Department of Defense (DOD).
    I want to point out that we have $400 million in the 
pipeline at the Department of Energy, and we have $500 million 
at the Department of Defense for the CTR programs. We spent 
about $1.1 billion last time. That comes under the jurisdiction 
of the Emerging Threats and Capabilities Subcommittee, of which 
I am Chairman, at least until 5 p.m. tonight, but there is 
bipartisan support for these programs by Senator Lugar, Senator 
Domenici, and Senator Kennedy, and Senator Levin has been 
outstanding in his support.
    We tried to work out a compromise with the House, but we 
made it contingent--and I am going to ask all three of you what 
you think about this--on greater transparency in regards to 
these programs with the Russians, access, and we are working on 
that, it has been a long, slow road, but we are getting a 
little better access, greater Russian cooperation, and internal 
management reform.
    One of the problems with these programs is that internal 
management has been pretty sad. There is another GAO report out 
in regards to the DOE programs, and we were concerned about a 
year ago when we found out 70 percent of the money stayed right 
here in the Department of Energy, as opposed to actually being 
used in Russia.
    I think it is certainly a very positive program, but a 
program that needs dramatic improvement. I understand the 
National Security Council is undergoing a review. Any comments, 
Doug, in regards to the whole proposition? You are for this, 
but I would assume you are also in favor of transparency, 
access, greater Russian cooperation, internal management 
reform, and that at least some of the support of this money 
should be contingent on those requisite things.
    Mr. Feith. Senator, each of those points sounds sensible.
    Senator Roberts. Well, thank you. I appreciate that. 
[Laughter.]
    Senator Kennedy also brought up the question in regards to 
Colombia. I got a little mixed up in terms of his question and 
your answer. Statutory permission, statutory authority. I think 
we have the statutory authority, and nobody wants to be in the 
midst of a civil war, and nobody wants to risk our troops. 
Senator Cleland has just referred to that. It is one thing to 
have a cause to fight for. It is another thing to have a cause 
to fight and die for.
    But let me say that we are making some progress, it seems 
to me, with the drug war and stability in the hemisphere. 
General Wilhelm, who is the former four-star Marine down there 
in the Southern Command, pointed out that down there, there are 
31 nations, 360 million people, average age 14.
    Now, again on the Emerging Threats and Capabilities 
Subcommittee we have that jurisdiction, and we look at the 
vital national interests involved here, drugs, immigration, 
energy, and trade, all four. As a matter of fact, I think it 
probably rates a higher priority than the Balkans, and I am not 
going to ask you to get into that. If anybody does not think it 
does not affect the pump price in Boston or Topeka in terms of 
energy, take a look at Hector Chavez, who could be the next 
Fidel Castro in regards to Venezuela. Do not hold me to that if 
I am ever going to be confirmed for anything, gentlemen. I 
appreciate that. [Laughter.]
    But at any rate, could you comment on that in terms of our 
strategic national interest, and Doug, you can start off, if 
you would like. I do not want to risk anybody down there in 
terms of a civil war, but I think in terms of Colombia and 
stability of the region, it is very important, is that not 
right?
    Mr. Feith. Senator, I agree with you that the stability of 
the whole Andean region, the whole northern part of South 
America, is an important U.S. national security interest.
    One of the reasons that we are in the relatively happy 
strategic position that the United States now finds itself in 
after the Cold War is that we have peace in the hemisphere, and 
on our borders, and making sure that our neighbors remain 
peaceful and reasonably stable is a very important interest of 
ours. I think that the items you cited, drugs, immigration, 
trade, energy, all are important factors that have to be 
properly weighed in making our policy towards that region.
    Senator Roberts. I am going to ask Peter, too. Peter, 
regards from Bob Ellsworth, our former Member of Congress, NATO 
Ambassador, Assistant Secretary of Defense, Foreign Policy 
Advisor de luxe and guru. He called me yesterday and said, 
treat Peter Rodman with all due respect, he is the best, and I 
agree. Now, with that introduction, what about the Southern 
Hemisphere.
    Mr. Rodman. Well, thank you, Senator, for including me in 
the hearing also. [Laughter.]
    I am grateful. Well, maybe I should not be grateful.
    Senator Roberts. Just be careful of what you ask for.
    Mr. Rodman. Yes, be careful what you ask for. That is 
exactly what I thought. [Laughter.]
    No, I am happy to answer that question, and I also want to 
compliment you and Senator Cleland. I am familiar in a general 
way with the colloquy which you both engaged in a year ago on 
the broad question of our national interest, and obviously the 
Western Hemisphere is an area where we have an enormous 
national interest and always have, so there is no question that 
Colombia is one of the biggest, one of the most daunting issues 
on the agenda. I have to say, if I am confirmed in this 
position, this will be one of the tough issues that I will have 
to address, and I am not an expert on Latin America, so I will 
need to educate myself.
    What I have learned as I have tried to read up on this is a 
lot of questions that we have not faced squarely. Clearly we 
have an interest in the counterdrug operation, but we also have 
a broader interest in our relations with these countries, which 
are now mostly democracies, and in supporting these democratic 
friends against the challenges they face in the political and 
security dimension.
    But how you disentangle these, or how you keep them 
together, or whatever, this is an issue I certainly do not have 
the answer for, because, as has been said, none of us wants to 
get into a war. The word counterinsurgency scares the hell out 
of everybody, but we do have an interest in the security, the 
viability, the strength of a democratic country like Colombia, 
and unfortunately it has become in part a responsibility of the 
Department of Defense. All I can say is, I do not have the 
answers yet, Senator, but I thank you for your kind words, and 
I know that this is something that has to be at the top of 
ISA's agenda.
    Senator Roberts. Mr. Chairman, my time has expired. Let me 
ask, are we going to have another round? I have an absolutely 
important question on NATO and a brilliant question in regards 
to emerging threats and terrorism.
    Senator Inhofe. We will do our best, Senator Roberts. Thank 
you.
    Senator Roberts. I feel a compelling need for another 
round, Mr. Chairman.
    Senator Inhofe. All right.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Feith, let me go back to the issue of the Intermediate 
Nuclear Force Treaty. You criticize it very severely, and I 
believe, from looking at your comments, that one of the 
critical issues is verification, the ability to verify whether 
the Soviets could, would, in fact, cheat on the treaty, and yet 
you say today that you support the treaty. Am I led to believe, 
then, that you would support a treaty that is not absolutely 
verifiable?
    Mr. Feith. Senator, the evaluation of an arms control 
agreement is a net assessment, and one weighs the pluses 
against the minuses. Regarding the INF Treaty, I participated, 
at the time that the treaty was published, in a study group of 
five or six people that did an article-by-article review of the 
INF Treaty that was published by the American Enterprise 
Institute.
    We said in that review that some of us support the treaty, 
some of us oppose it, but we wanted to just do an analysis and 
publish what we thought the treaty said, and analyze elements 
of it, its meaning, identify problems with it, and one of the 
members of that study group was Richard Perle, who then 
testified in front of Congress in favor of the treaty, so the 
study group had people of varying opinions.
    I believe that the Senate acted wisely in approving 
ratification of that treaty, and I think that the treaty has 
contributed, has been a net benefit to U.S. national security, 
despite the fact that there were elements of it that were not 
as strong as other elements.
    Senator Reed. I raise the question because in the context 
of our recent debate on the Comprehensive Test Ban Treaty, one 
position that was advanced by many opponents was the fact that 
they could not be absolutely verified, that there was a certain 
merit, of course, to having a treaty, but it could not be 
absolutely verified.
    First of all, let me ask for the record, what was your 
position on the Comprehensive Test Ban Treaty, and what was the 
reason, if you opposed it, that you opposed it?
    Mr. Feith. Senator, I opposed ratification of the 
Comprehensive Test Ban Treaty, for the reasons that Secretary 
Rumsfeld has highlighted: that there were serious verification 
problems with it, that the verification problems were 
significant, that there were issues of the military 
significance of explosions that could not be effectively 
detected, monitored.
    Also, there were serious questions about whether we could 
maintain a safe and reliable and effective nuclear deterrent in 
the absence of testing, and Secretary Rumsfeld has highlighted 
those as problems. I think that again the Senate acted wisely 
in withholding its support for ratification of the 
Comprehensive Test Ban Treaty.
    Senator Reed. In that light, would you recommend the 
departure from the current moratorium on testing, and 
engagement in testing of nuclear weapons by the United States?
    Mr. Feith. No, Senator. At the moment, the Bush 
administration is maintaining that moratorium, and I am happy 
to support that policy.
    Senator Reed. Dr. Crouch, the same question. Would you 
recommend a departure from the moratorium on testing, and 
engagement in testing nuclear weapons?
    Dr. Crouch. I think you may know, Senator, that I am on 
record, having supported nuclear testing in the past, I believe 
that nuclear testing has played a vital role in maintaining the 
security and safety of our nuclear weapons.
    However, there is a review going on right now of not just 
the issue of testing, but our entire nuclear infrastructure, 
stockpile and the like, and in the context of that review I 
think this issue is going to be taken up.
    I support the President's position today, which is that we 
will maintain the moratorium on nuclear testing. I think one of 
the issues, if I were confirmed, that I would have to be very 
involved in is looking at the question, for example, of what 
are the alternatives to testing. How effective would a 
stockpile stewardship program be in maintaining the 
infrastructure and the ability to test, for example.
    One of the things that the Secretary highlighted that I 
think is very important is, how do you maintain the personnel, 
that is to say, the people who know how to do these things, in 
an age where the number of nuclear weapons, obviously, as the 
President said, are going to go down. It seems to me that in 
some respects, that as we bring that stockpile down, which I 
support consistent with our national security goals, we rely 
more and more on fewer numbers and fewer types of weapons. It 
is essential that those weapons be safe, we understand their 
effects, we understand their reliability. It is an issue that I 
am going to have to take very seriously and will take very 
seriously, if confirmed. I will look at it. I would not rule it 
out at this point, but I do not think I could say yes, 
positively, at this point, I am going to recommend that.
    Senator Reed. I believe that you have seriously considered 
this issue before, when you came to a much more definitive 
conclusion that you would urge testing, but I thank you for 
your answer, Doctor. Thank you very much.
    Thank you, Mr. Feith. Mr. Rodman, I am sorry. [Laughter.]
    Senator Inhofe. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I want to thank 
each of you for your service to your country over the years, 
and the fact that you have written and been engaged in matters 
of important public policy over the years should be something 
we are thankful for, that you have been able and willing to 
sign your name to articles, to engage in some of the most 
important issues facing our country. As the years go by, not 
everything I have ever written I am pleased with, and I am sure 
the same will be true for you.
    Dr. Crouch, how many years ago did you write this legal 
opinion about the existence of the Soviet Union?
    Mr. Feith. I think, Senator, it was I who wrote that.
    Senator Sessions. Mr. Feith, excuse me, yes. How many years 
ago was that?
    Mr. Feith. I believe it was published in 1999.
    Senator Sessions. Regardless, my thinking is simply this--I 
did not think it would be that many years ago, but I guess my 
thought is simply this. You were writing a legal opinion about 
a matter that is, I think, undisputed. No good lawyer could 
come out with a different opinion on this.
    Somebody may think we ought to continue this treaty, but I 
am not at all of the belief that you could rationally conclude 
that we are bound to a treaty with a dead empire that is, in 
fact, extinct, that is so totally different, Russia today, 
smaller, a friendly power, a democracy compared to the Union of 
Soviet Socialist Republics that threatened the world and 
democracy for 50 years. So to me I think you did the right 
thing on your legal opinion and should not be criticized for 
it.
    We have been talking some about unilateralism, and I know 
members of the world community, whoever they are, express 
concern that the United States is acting unilaterally. I 
remember, I was at a North Atlantic Assembly meeting with 
delegates from other parliaments around the world, and met with 
a member of the House of Lords.
    He suggested we should not be involved in the Balkans 
without a vote of the United Nations, and I responded to him, 
sir, if the United Kingdom were in serious trouble, would you 
prefer that the decision be made on whether or not to deploy 
the United States military to defend the United Kingdom by the 
United Nations or by the United States? He acknowledged that 
was a valid consideration.
    I am concerned that in recent years we have felt an almost 
politically correct need to subordinate our national interest 
to world bodies that may not be always rational in their 
conclusions. I think it is important that we maintain our 
ability to utilize the power that the American people sacrifice 
to create, so that we can use it in our just national interest, 
in the interests of the world.
    Mr. Rodman, you have been ignored on this. How do you feel 
about this unilateralism theory?
    Mr. Rodman. Senator, I share your broad sentiment. The 
President and Congress, particularly the Senate, share vital 
constitutional responsibilities for the national interests of 
the United States which they cannot delegate to anyone else.
    I also want to say that I agree with some things Doug said 
a few moments ago, particularly in the area of treaties, but 
the main point is, even though we are predominant, we benefit 
from working with others. This President, in fact, not only in 
this campaign, but more recently, has put enormous emphasis on 
the importance of working with allies, working with others, 
sharing responsibility if we can with others, so we benefit 
from that, but in the last analysis, particularly where vital 
issues of national security are concerned, we cannot delegate 
the decision to others, and the United Nations again can be a 
useful supplement to our policy.
    It is a way of engaging other countries on issues where we 
want to cooperate, and we want others to join, but there will 
always be decisions, cases where we have our own decision, and 
others may disagree, but we have to try to persuade and so 
forth. But there will be cases where we will do things that 
others will not agree with. We try to minimize it, but we 
cannot delegate our sovereign responsibility.
    Senator Sessions. Mr. Feith and Dr. Crouch, would you agree 
that ultimately the use of American power is the responsibility 
of the Government of the United States, and that we ought not 
to subordinate our ability to utilize our power, except through 
the treaty-making power, to other groups around the world?
    Mr. Feith. Senator, I think that your citing of the treaty-
making power is an important point, because it highlights the 
wisdom of the Founding Fathers in making decisions of that 
importance about using force, key issues of national defense 
and national sovereignty, subject to the cooperative process of 
the Senate's advice and consent on treaties. I certainly agree 
with you that the Senate has an extremely important role to 
play in deciding whether it is in the national interest for us 
to bind ourselves to other countries on matters of that 
importance.
    Dr. Crouch. Yes, Senator, I share the views that have been 
articulated by my colleagues here. I think that the issue of 
unilateralism is one that this President has done a very good 
job of demonstrating that he is committed to working with 
allies.
    He has been very engaged so far, and the administration, in 
my view, has been very engaged so far in consultations across a 
wide range of issues, not just on specific topics. I think that 
it seems to me if I can add one thought here, is that we are 
not just another country. We have a leadership role to play, 
and that does not mean that we run around telling other 
countries what to do. I do not think that this administration 
has done that, or certainly would do that. It certainly would 
not be any guidance that I would provide. I think that we must 
exercise that leadership role, and I would not want that called 
unilateralism. I would rather it be called leadership.
    Senator Sessions. Well said. I agree with that. I think it 
is exceedingly important that we work with our allies and 
friends around the world, but at the same time, we need to know 
and the world needs to know that we are capable of making our 
own critical, independent decision if need be. One former 
Clinton administration official who testified here wrote that 
we talk about a post-world war strategy. He said when we talk 
about a post-world war strategy, it is an admission we have not 
developed one yet.
    I think it is a challenge that each of you will have to 
think clearly about the myriad of problems, this different 
world we are in, this post-Soviet world, and to help us develop 
a policy that all parties, all people in this country can unite 
behind, and that will preserve and protect and defend the great 
freedoms of this United States, and promote peace throughout 
the world and economic prosperity.
    I am excited about your nominations. I think it is going to 
be a refreshing change in the Defense Department. You have 
great opportunities to make some historic progress. I wish you 
the best, and assure you I will do my best to help you.
    Senator Inhofe. Should we interpret that as that you are 
going to vote in support?
    Senator Sessions. You certainly can, Mr. Chairman.
    Senator Inhofe. Senator Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Mr. Feith, one could have concluded from many of your 
writings in your legal memorandum that you do not think very 
much of arms agreements or treaties, and some people have 
suggested that maybe some of your views may even get nearly off 
the chart. I would not suggest that confirmation conversion 
here, but there does seem to be a shift in your thoughts about 
the arguments. The bright line of opinion seems to pale a 
little bit under examination. I will be anxious to know what 
your policy advice will be to the White House, if you are 
confirmed.
    Perhaps Senator Roberts will be long remembered for the 
Roberts Rule which he introduced today, and that is--always 
have a disclaimer associated with any writings in case you come 
before this committee or any other committee for confirmation.
    What I would like to do is ask a little bit more about Plan 
Colombia. I know that you said that you have not had the 
opportunity to get into it to any great extent, but in terms of 
policy--and I am not trying to set this up because it could be 
any or all of the above--is it a civil war, is it a drug war, 
is it nation-building, is it being the world policeman, is it 
any or all of those, or is it something else--civil war, drug 
war, nation-building, or being the world policeman?
    Mr. Feith. Senator, I think that the problem in Colombia is 
all of the above, and probably a few more things you could 
list.
    Senator Ben Nelson. Is it appropriate for us to be in any 
of those roles, or all of those roles?
    Mr. Feith. As I understand it, Senator, our role right now 
is focused on the counterdrug activities of the Colombian armed 
forces. It is difficult to draw very neat lines between these 
different areas you have highlighted. It is quite clear that if 
we enhance the capabilities of the Colombian forces to deal in 
their counterdrug operations, then necessarily you are 
enhancing their capabilities overall, which ultimately redounds 
to the benefit of the Government in dealing with the 
insurgency.
    So it is not a subject that lends itself to neat 
compartmentalization, but I think that the focus of the DOD 
efforts, as I understand the situation, is appropriate. I mean, 
it is within the bounds of the law, and the broader points that 
were made earlier by Peter Rodman and others about the general 
importance of stability in our hemisphere are an important 
element of our analysis of that issue.
    Senator Ben Nelson. Mr. Rodman, not to leave you out, would 
you respond to that, too, please?
    Mr. Rodman. I share the sentiment. We have decided as a 
country to emphasize the counternarcotics effort. That is what 
two administrations and Congress have decided, but I think 
inescapably we also have a stake in Colombia as a longstanding 
democracy and a friend, and I would not call it nation-
building. I think that phrase brings to mind more ambitious 
things that we may not in other parts of the world want to 
attempt.
    I think we do have a stake, and we should not shy away from 
saying it, a stake in helping Colombia, which is a friend, to 
survive. It happens to be under assault of extremists of both 
the right and the left, and we have chosen not to engage--we 
have not chosen to get into the civil war, but I think 
inescapably, as Doug said, as we offer any help we give them we 
are hoping that they will be intact as a State.
    Now, you mentioned world policeman. I do not think that 
applies. I think that the Western Hemisphere, if we do not have 
a vital interest in the Western Hemisphere, then you know, we 
do not have a vital interest anywhere. This is a friendly 
country, a pivotal country that we have a stake in, and I think 
obviously as a country we are being very careful and cautious, 
and I do not have any answers about what we should do, but I 
think there are good reasons why we are involved there.
    Senator Ben Nelson. Would that apply to the Balkans, or 
Haiti, or Somalia?
    Mr. Rodman. Every case is different, and I have different 
opinions about different issues, and on the Balkans, I support 
what the President has said. We are engaged there, and we and 
our allies need to make collective decisions one way or 
another.
    Haiti is something in the past. I had some doubts about it 
when it happened, but it is not on the current agenda.
    I think we have to be selective. I think this is the 
President's philosophy, and it is shared by many others. We 
cannot get engaged everywhere. We need to look at where our 
national interests are at stake, and it is something that the 
President and Congress, one hopes, will share in deciding as a 
country what we do.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Nelson.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Feith, thank you for your time, and for visiting and 
sharing some of your thoughts with me. I was interested in your 
asymmetric threat statements. In answers to advance questions 
you submitted to the committee regarding asymmetric threats to 
the United States and appropriate responses, you mentioned a 
range of asymmetric threats, including terrorism and threats 
against our space and information systems. You state that in 
light of these threats, including biological weapons and 
conventional attacks, the administration's response is, and I 
quote, the development and deployment of missile defenses, 
unquote. How does this policy protect us against attacks on our 
information systems or against a biological weapon delivered by 
terrorists?
    Mr. Feith. Senator, this issue of asymmetric threats, or 
emerging threats, is one that I know that members of this 
committee, Senator Levin in particular, have been assiduous in 
highlighting, and it is an enormously important question, and 
it is of great value that this committee is focused on it as it 
is.
    The topic covers a range of threats, as you mentioned. An 
element of it is the threat of the use on American territory of 
weapons of mass destruction, and there are, of course, various 
means by which those weapons could be delivered. One of them, 
which is the vulnerability that the missile defense program 
will attempt to defeat, is the danger of missile attack, but it 
is clear that that is not the only means by which that threat 
can be posed against U.S. territory.
    Senator Akaka. You have mentioned also that missile defense 
is not a threat to China, rather, it is intended to defend 
against a newly emerging ballistic missile threat resulting 
from proliferation, and also against unauthorized launches. 
Could you please clarify the statement, and what you mean by 
that, and what is the administration's point of view of any 
threat posed by China. Are you concerned about Chinese military 
modernization, and if so, what type of threat do you see it 
posing to us, and what should our response be?
    Mr. Feith. Senator, I am not sure that I heard the whole 
beginning of your question. As far as the issue of Chinese 
military modernization, this is a serious issue, a serious 
challenge for the United States. The Chinese have had a 
military modernization program underway for years, an important 
element of which is modernization of their offensive nuclear 
forces. This is something that is of concern.
    I think President Bush captured well the complexity of our 
national security view of China when he said, we have different 
values, yet common interests in the world. We agree on the 
importance of trade. We want the citizens of both countries to 
enjoy the benefits of peace, so we need to work together on 
global security problems such as preventing the spread of 
weapons of mass destruction. He said, I will always stand 
squarely for American interests and American values, and those 
will no doubt sometimes cause disagreements with China, yet I 
will approach our differences in a spirit of respect.
    I support the President's views on our relationship with 
China, and I think that the Defense Department has an important 
responsibility in protecting U.S. interests in Asia, helping to 
deter and defend against threats, including the threats that 
derive from the Chinese military modernization program that you 
have referred to.
    Our challenge is to help shape a security environment in 
which stability in Asia can be maintained as China continues to 
emerge as a power in the region. That emergence is fairly 
inevitable, and we have to accommodate, we have to modify and 
continually review our response to it--there is no way to 
prevent China from getting bigger and stronger--but we have to 
do so in such a way that we can preserve our interests and 
those of our friends and allies in the area.
    Senator Akaka. Part of my question was whether our missile 
defense, whether it is a threat to China, and ask that you 
clarify the statement. With all that has been said about our 
missile defense, I was concerned about whether it really makes 
a difference, and why our missile defense is not a threat to 
China.
    Mr. Feith. Senator, the President has stated that the 
purpose of our creating missile defenses against a limited 
threat, and he emphasized the word limited, is to address the 
problem of the proliferation of missile capabilities to rogue 
countries, and to deal with the problem of unauthorized or 
accidental launches. The missile defense concept that the 
President has been propounding is not directed, he has said, 
against Russia or China.
    Senator Akaka. Let me ask you this, could you tell me which 
arms control treaties you support which cannot be completely 
verified?
    Mr. Feith. Senator, I personally do not use the term 
completely verified. It is just not the way I have analyzed 
arms control agreements. I think that there are issues of 
verification that fit into the broader assessment, net 
assessment of arms control agreements that one does in 
evaluating whether they are a net plus from the point of view 
of U.S. national security policy. There are agreements where 
the verification regime--or there are proposals, sometimes, for 
agreements where the verification regime would not allow the 
United States, for example, to detect even militarily 
significant violations of the agreement. If that were the case, 
I would say that is highly problematic, and I would tend to 
oppose an agreement of that kind.
    If you ask, what arms control agreements I support, there 
are various arms control agreements. I mentioned that the INF 
Treaty, the Intermediate Nuclear Forces Treaty, is an agreement 
that I support, START I, START II. I think that the approach to 
chemical weapons arms control embodied in the Geneva protocol, 
which bans the use of chemical weapons, is a sensible, useful, 
good approach.
    If you ask, are all of those agreements absolutely 
verifiable, the answer is, there may be violations to a greater 
or lesser degree of some of them or of aspects of them where we 
would not know for sure that they have occurred, but that does 
not mean that they are not of net benefit to the United States.
    I think we need to evaluate the issue of verification when 
we look at arms control agreements, and I know that this is 
something that the Senate does, and does with great 
seriousness, and it is an important function of the Senate in 
the treaty-making process.
    Those issues of verification have to be evaluated as an 
element of the overall assessment of what the treaty sets out 
to accomplish.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator, very much. Gentlemen, 
I am sorry I had to leave, but I am delighted to come back and 
conclude these matters here with you this morning.
    I would like to go back to the ABM Treaty. I was not 
present during all of the colloquy, but I would like to give 
you my own views. I have had some familiarity with this treaty 
for many years. I was in the Department of Defense as Secretary 
of the Navy at the time the work-up documents were made, 
preparatory to the meeting in May in Moscow when President 
Nixon and President Brezhnev executed that treaty. I happened 
to have had the privilege of being in Moscow at that time.
    I was there for the Incidents at Sea Agreement, an integral 
part of the group that worked on it, and I have been supportive 
of the ABM concept, but I think our President, President Bush, 
has very correctly, very properly enunciated his goals with 
regard to the limited threat that faces this Nation from the 
rogue missile or the accidental or unintentional firing.
    Now, people tend to say, oh, well, it could never happen, 
but regrettably the world has watched two tragic events where 
the most highly skilled officers were in charge of two 
submarines. One, the first, the loss of the Russian submarine 
with all hands, apparently because of some accidental situation 
occurring aboard that vessel, full details of which we do not 
have, but we know enough that it was clearly an accident. We 
have reason to believe that that vessel did have nuclear 
weapons aboard, but we saw an accident happen.
    We saw a second accident happen with a submarine of our 
own, commanded by what we had every reason to believe was a 
highly skilled naval officer, but an accident happened.
    So anyone who says that accidents cannot happen, I point to 
these two incidents to show that they can happen, and therefore 
I think our President is absolutely right in taking the 
initiative to prepare this country to do whatever we can to 
destroy an incoming missile, whether it be from a rogue nation 
or an accident.
    Now, in that context, I draw your attention to the National 
Missile Defense Act of 1999, adopted here in the Senate and the 
House, now the law of the land signed by the President. My 
first question to you is, as I look at the actions taken by 
President Bush, I see of intention, in any way, other than to 
follow that law. Do you agree with that, Mr. Feith?
    Mr. Feith. Yes, I do, Mr. Chairman.
    Chairman Warner. Thank you. Anyone else at the table, Mr. 
Rodman?
    Mr. Rodman. I certainly agree.
    Chairman Warner. I would like to go back to the treaty 
itself. It is clear to this Senator that the President has 
every right to, within the current framework of the treaty, to 
initiate research and development programs on systems that 
previous presidents for whatever reason decided not to 
initiate. Do we agree on that?
    Mr. Feith. Yes, sir.
    Chairman Warner. That if the research and development is 
permitted, it would give this Nation some better understanding 
on the feasibility or nonfeasibility of different types of 
approaches to the defense against ballistic missiles, do you 
agree with that?
    Mr. Feith. Yes. That is my understanding, too, Senator.
    Chairman Warner. It is my hope that the President, under 
his leadership, with the current President of Russia, can work 
out some framework, as President Bush said, either by way of 
amendments, or a new framework by which to take further steps 
beyond the research and development phase on new systems. Am I 
not correct in that?
    Mr. Feith. Yes. I know, Mr. Chairman, that there is a great 
interest in exploring cooperative arrangements with the 
Russians.
    Chairman Warner. I think he has made progress in sending 
the teams forth throughout the world on this issue, and that 
you see a better understanding of other nations, not just of to 
the threat to the United States, but indeed the threat to 
Russia. Russia is within a perimeter of firings from other 
nations that gives them almost a greater vulnerability than the 
United States to some systems.
    So I am hopeful that eventually this can be worked out, 
that a new framework can be established so that the research 
and development on certain new concepts can be carried into the 
testing and, if necessary, into the deployment phase, so I 
think we have a clear understanding on that.
    Now, Mr. Rodman, on the question of NATO, I think NATO has 
been the most extraordinary military pact in the history of 
mankind, and we have to do everything we can to keep that pact 
and to make it work as it has these many years to deter 
aggression and, if necessary, then to combat aggression. It 
deterred for some half-century. Then, of course, when the 
aggression occurred in the Balkans, it was employed, 19 
nations, to successfully bring about the fighting in that 
conflict.
    But I tell you, whether you know it or not, I opposed the 
enlargement of NATO in years past, and I intend to, not 
arbitrarily, look very carefully at any future proposals to 
enlarge NATO. I feel that we have to make what is in place 
work, and to work, and work better, before we proceed to 
further enlarge it.
    I think all the Nations have to be given an opportunity to 
properly fund their participatory obligations to NATO, and then 
to train what they have in place, to integrate their forces so 
that, indeed, they can be viewed as a strong initiative to 
strengthen NATO.
    I would be interested in your views on the subject of 
further enlargement. That subject will be brought up next year.
    Mr. Rodman. As you say, that is one of the important issues 
on our agenda the next few years, and I was an advocate of 
enlargement in the first go-around, and the President--I think 
the executive branch and the Senate are only at the beginning, 
I think, of the process, and I do not think the President has 
made any decisions that I am aware of about exactly who we will 
advocate.
    Chairman Warner. I agree.
    Mr. Rodman. I assume there will be consultation with 
Congress, but I do want to say that I also want to defer to my 
colleague, J. D. Crouch, because I think if my understanding is 
that Secretary Rumsfeld may be rearranging some of the 
responsibilities in the policy office, so that area, while I 
have a strong interest in it, the NATO issues may move to the 
Office of International Security Policy. I am happy to answer 
questions that you have.
    Chairman Warner. I just make really more of an observation, 
and a personal one, that I think we have to make what is in 
place work, and work very well, before we begin to add other 
nations. That is my view.
    Mr. Rodman. I hope the executive, and the President, and 
the Senate, this committee, work closely as this policy 
evolves.
    Chairman Warner. All right. Mr. Feith, I hope that you 
commit to the extent you can on behalf of the Secretary of 
Defense to involve Congress, particularly those committees that 
have an integral responsibility in the question of security 
affairs, as we proceed with this NATO enlargement issue.
    Dr. Crouch, your views.
    Dr. Crouch. Thank you, Mr. Chairman. I think it is 
essential that we work with this committee. I have to say that 
I had left public life when the first NATO expansion occurred, 
and I began a skeptic, but I have come to believe that this was 
a wise choice.
    Chairman Warner. You mean the past round of enlargement?
    Dr. Crouch. Yes, the past round of enlargement, but I 
mention that because I want you to know that I do not come to 
this with a preset set of ideas about what we should or should 
not do. I think that I would underscore one point, and that is 
that NATO has been a very effective alliance, so that a 
principal question for me beyond the general question of, is 
this in the National security interests of the United States, 
is will NATO retain its capacity for collective action? If 
bringing states in weakens that capacity, I, myself, I think, 
would not be supportive of that move, and I do not think the 
Secretary or the President would as well.
    Chairman Warner. Those are the correct criteria by which to 
view this subject and, indeed, I approach it with an open mind.
    Dr. Crouch. I hope to work closely with the committee on 
that, if confirmed, Mr. Chairman.
    Chairman Warner. I also believe that Russia has strong 
feelings on this issue, and if I were to prioritize the issues 
before this Nation at the present time, I would put the 
reconciliation of the differing viewpoints on ABM as the top 
priority. Perhaps the ABM Treaty, if it is worked properly, 
which I am optimistic that the President can achieve, then we 
can move on to other issues.
    Would you care to comment, Mr. Feith, on the reallocation 
of responsibilities?
    Mr. Feith. Mr. Chairman, I think what Peter Rodman was 
referring to is that I believe the Secretary's current thinking 
is that the International Security Policy Office will have 
responsibility as a geographical matter for Europe and Eurasia 
more generally.
    Chairman Warner. Would you undertake, and/or the Secretary, 
to advise the Senate as quickly as you can if there is a 
reallocation of responsibility?
    Mr. Feith. Absolutely, as soon as the thinking 
crystallizes.
    Chairman Warner. Now, to the question of the Balkans, and 
the policies of this administration with regard to the current 
level of deployments and the future level of deployments. There 
has been some publicity to the effect that maybe the views of 
Secretary Rumsfeld could be at variance with the views of 
Secretary Powell.
    I think Secretary Powell has to look at it from the 
standpoint, again, of NATO, first and foremost, and the 
question of the relationships with the NATO countries. Let 
there be no perception that we are less than a full partner in 
NATO and its missions, and the fulfillment, and the conclusion 
of those missions.
    On the other hand, Secretary Rumsfeld is concerned that 
much of the costs of that operation prior to the last fiscal 
year were borne by the military services, which negatively 
impacted on procurement and readiness and modernization.
    Would you care to comment on what you perceive is the 
current policy with regard to that withdrawal?
    Mr. Feith. My understanding is that some of the remarks 
that Secretary Rumsfeld has made about the issue of United 
States deployment in the Balkans, in particular in the Bosnian 
deployment and the Kosovo deployment, have given rise to some 
misunderstandings. As I understand it, the Secretary values the 
missions.
    Chairman Warner. I would suggest you add a name to 
``Secretary.'' We are talking about two now.
    Mr. Feith. Secretary Rumsfeld. I think he and Secretary 
Powell share an evaluation of the missions as important. 
Secretary Rumsfeld has been, as I understand it, emphasizing 
that the United States should configure its participation in 
those missions in the best, most efficient fashion, and that 
the missions have evolved over time.
    For example, in Bosnia the initial mission was more 
military. The current mission includes an important element of 
civil implementation, and the Secretary has raised the question 
of whether we are appropriately configured to do the mission as 
it exists right now. This has been, I think, interpreted, 
misinterpreted, as somehow devaluing the mission or wanting to 
pull U.S. forces out unilaterally.
    Secretary Rumsfeld has been, I think, emphatic on the point 
that the United States went into the Bosnian mission as part of 
the alliance, and is going to remain part of the alliance, and 
as I think he put it, we went in together, and if we come out, 
we are going to go out together, and has no desire to disrupt 
the harmony of alliance work on that subject.
    Chairman Warner. Thank you very much.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. It is my 
understanding, Mr. Feith, earlier in the testimony this morning 
that you had stated that you agreed with the goal of the 
Chemical Weapons Convention (CWC), but you disagreed with 
language in it. Could you share with us what is the language to 
which you object?
    Mr. Feith. Senator, I certainly do agree with the goal of 
the Chemical Weapons Convention, and think that the world would 
be much better off if chemical weapons were entirely abolished, 
and nobody had them.
    My concern about the convention itself was more than a 
matter of language. It was the question of whether the approach 
to chemical weapons arms control in that convention was a 
sensible approach. My view was, there is a very good chemical 
weapons treaty already in existence. It is the Geneva Protocol, 
one of the most venerable of the arms control agreements, and 
it bans the use of chemical weapons in war.
    The principal problem of chemical weapons, the principal 
problem of the chemical weapons threat, in my view, was that 
that treaty had been on a number of occasions violated most 
horrifically and recently by the Iraqis in their war with Iran. 
The Iraqi Government of Saddam Hussein also used chemical 
weapons against the Iraqi Kurdish citizens, and when that 
occurred, the international community did nothing to enforce 
the existing treaty.
    Then that same international community that dropped the 
ball, as it were, that failed to enforce the sensible, 
verifiable ban on the use of chemical weapons produced a ban on 
possession of chemical weapons, and by undertaking to ban 
possession, it was taking on itself a detection and monitoring, 
a verification job that just cannot be performed, and it was 
quite clear that our intelligence lacks the capability to 
detect even militarily significant violations of that 
agreement, and that was one of my principal concerns.
    So my view was, it would be much more constructive for the 
goal that I think everybody in the debate supported, if we had 
focused on putting teeth into the enforcement mechanisms for 
the ban on the use of chemical weapons, rather than to pursue 
the ban on possession. Having said that, I just want to add 
that the Chemical Weapons Convention is now the law, and it is 
the administration's job to enforce that and make it as 
effective as possible, and if confirmed, that would be my 
focus.
    Senator Bill Nelson. Do I interpret correctly that what you 
are saying is that the CWC, in your opinion, is superfluous, 
given the fact of the Geneva Convention?
    Mr. Feith. I think that rigorous enforcement of the Geneva 
Convention would contribute much more to addressing dealing 
with the threat of chemical weapons than the nonpossession ban 
of the Chemical Weapons Convention.
    Senator Bill Nelson. So in essence you are saying yes, that 
it is superfluous. Do you think it is harmful?
    Mr. Feith. The concern I had about some harm that I saw in 
the Chemical Weapons Convention had to do in particular with 
certain provisions that required the sharing of technologies 
regarding defensive gear and defensive measures, and the 
concern that I had is, there is an obligation in the treaty to 
share chemical weapons defense technology, and there is a 
danger there that a party that would enter into the convention 
not in good faith could obtain by its party status access to 
defense technology that could enhance the ability of that party 
to use chemical weapons offensively, and that is a serious 
problem.
    I think a number of the problems with the Chemical Weapons 
Convention that a number of us highlighted in the course of the 
debate were addressed very seriously by the Senate and were, to 
some extent, remedied in the ratification action, in the 
ratification approval that the Senate took, and so I think that 
was a constructive exercise.
    Senator Bill Nelson. If confirmed, and you consider that 
part of the CWC a danger, how would you then implement the CWC 
as law?
    Mr. Feith. We would have to implement it as carefully as we 
can, fulfilling our treaty obligations but doing so in as 
prudent a fashion as possible to minimize the dangers.
    Senator Bill Nelson. Could you help me understand what you 
mean by prudent?
    Mr. Feith. All I can say at this point, Senator, is we 
would have to keep the dangers in mind. One of the things that 
comes to mind, for example, is, the Nuclear Nonproliferation 
Treaty, a treaty that I think was also a net plus, and 
contributed to the slowing down of the proliferation of nuclear 
weapons capabilities, nevertheless had elements to it that have 
been a problem.
    For example, in the International Atomic Energy Agency 
inspection regime that is part of the Nuclear Nonproliferation 
Treaty, Iraq is a party to the Nonproliferation Treaty. After 
the Gulf War, when the U.N. weapons inspectors talked to Iraqi 
nuclear engineers, they learned that Iraqi nuclear engineers 
participated in the International Atomic Energy Agency 
inspection regime, and through that participation, learned how 
better to conceal the Iraqi nuclear program and Senator, our 
intelligence community was stunned at the effectiveness of the 
Iraqi concealment program for their nuclear weapons program. 
They were much farther along, we discovered after the war, than 
our intelligence community thought at the time, and one of the 
reasons they were so far along is, they had signed on to the 
Nuclear Nonproliferation Treaty, participated in the IAEA 
inspection regime and knew how to do it, how to conceal what 
they were doing.
    Now, that is an example of how a perfectly well-intentioned 
apparatus can sometimes be put to bad use, and we need to 
protect against problems of that kind.
    Senator Bill Nelson. Indeed we do. Now, with regard to the 
CWC, would you share with us what other efforts you think that 
our country might take to protect ourselves from chemical 
weapons developed and deployed? I would be interested in 
hearing your ideas.
    Mr. Feith. Senator, one that comes to mind right away is 
ensuring that we have appropriate defense capabilities in the 
chemical weapons area. Defense capabilities means things like 
protective gear, detection and analysis capabilities, so that 
if chemical weapons are used against our forces we can know 
that they have been used and what the agent is, and also the 
appropriate medical treatment for the different agents, 
chemical weapons agents that we are likely to confront.
    Chemical weapons are most effective against unprepared 
forces, and to the extent that our forces are properly prepared 
with defensive gear, and defensive technologies, it will 
contribute to our deterrence.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    We are going to go into a second round now, and I am going 
to remain.
    Mr. Roberts.
    Senator Roberts. Doug, in your response to the committee's 
questions, you stated, another major challenge is dealing with 
so-called emerging threats, the ability of hostile forces, 
State and terrorist organizations to cause serious damage on 
U.S. territory even though they cannot defeat our armed forces. 
You said this field of emerging threats deserves the most 
serious attention of defense policymakers. I could not agree 
more.
    Basically, I think, in assessing our vital national 
security interests, we have had reports from the CSIS folks, 
the Hart-Rudman Commission, the Gilmore Commission, the Bremmer 
Commission, and the Rand Corporation, all of them indicating 
that if not number 1, it is close to it. In regards to the 
threat to the individual American citizen, homeland security 
has now forged to the top.
    I am Chairman of the Emerging Threats and Capabilities 
Subcommittee, a newly formed subcommittee by the distinguished 
chairman. We had a hearing here about 3 weeks ago with the 
Appropriations Committee, the Armed Services Committee, and the 
Intelligence Committee. We invited 46 Federal agencies to come 
up here, and basically asked them, what is your mission, who is 
in charge, what do you do? The FBI said we are in charge, FEMA 
said they were in charge, and finally the sheriff of Arapaho 
County said he was in charge, that he was a first responder.
    Now, I understand you are going to have an Assistant 
Secretary in charge of Special Operations, Low Intensity 
Conflict, or an outfit called SOLIC. That is the acronym for 
that DOD agency. Now, about a year ago we asked four people to 
come up from the Department of Defense, and I asked them to 
testify in order of who is in charge on terrorism, and none of 
them knew which to go first. Now, we legislated, however, that 
there should be an Assistant Secretary for Terrorism, if that 
is the proper word, or homeland security, and you are going to 
be in charge of that person, is that right?
    Mr. Feith. The Assistant Secretary for SOLIC reports to the 
Under Secretary of Defense for Policy, so if confirmed, the 
Assistant Secretary would report to me.
    Senator Roberts. If confirmed, if we get past all of the 
articles and the editorials, et cetera, et cetera, but at any 
rate, that person would report to you, is that correct?
    Mr. Feith. Yes, sir.
    Senator Roberts. OK. Now, some people feel that the DOD 
made a mistake in not being in charge of homeland security. 
That went to the Justice Department. Now we have FEMA being the 
facilitator for the review by the Vice President on this. Do 
you have any thoughts on DOD's role, and I am specifically 
interested in the National Guard, the RAID teams that we have.
    You are going to have people on the scene. You are going to 
have--my gosh, you are going to have the RAID teams, special 
units, Red Cross, FBI, FEMA, first responders. It is going to 
be a real challenge. Any thoughts on DOD's role?
    Mr. Feith. Senator, it is bureaucratically very complex. It 
is conceptually very complex. To handle this problem within the 
United States requires great sensitivity to the issues of civil 
liberties and the appropriate role of the Defense Department in 
supporting civil authorities within the country. It is a hard 
problem, and the messiness, as it were, of the bureaucratic 
structure I think reflects that.
    Senator Roberts. Yes, but if an incident like this happens, 
you know DOD will be called on.
    Mr. Feith. Absolutely. When it comes to what is now called 
in the bureaucracy ``consequence management,'' the Defense 
Department has real expertise, and it knows about analyzing, 
for example, chemical agents, or biological agents, it knows 
about protective measures, it knows about decontamination. 
Those are special talents that have been developed within DOD, 
and therefore the Defense Department has an extremely important 
role to play if there were a terrorist incident, a use of 
weapons of mass destruction in the United States on U.S. 
territory, but that role has to be fitted into a general 
Government program. DOD is not the lead agency. DOD would be 
supporting the civil authorities in that area, and working to 
make sure--I have not mastered this very complex field, but I 
am at least aware of one of the key challenges, which is 
working to make sure that we have the bureaucratic structure in 
place so that if a terrible event like this occurs, DOD can 
most effectively bring its own capabilities to bear in support 
of the civil authorities.
    Senator Roberts. I appreciate that answer. I would just 
like to say that I want to thank the chairman for his question 
on NATO, and thank Dr. Crouch for indicating the number 1 
concern is collective action. As we all know, we had the 
situation with our allies now talking about something called 
ESDP, or ESDI. I do not know about the third way, but the 
French and Germans seem to have their own way. Very little 
monetary investment in that.
    Wes Clark just wrote a book about the 19 nations and our 
Kosovo effort. It was like herding cats. Those are my words, 
not his.
    I want to just mention to you the strategic concept adopted 
by NATO two summers ago, as opposed to collective defense, the 
mission of NATO now and the United States I assume also 
involved missions in Europe as to crime, drugs, environment, 
ethnic violence and repression, peacekeeping.
    I am worried about this. I am worried about our collective 
action and our role in regards to NATO, and in regards to NATO 
expansion more especially with the Balkan States. If we are 
worried about the ABM Treaty and we expand NATO into the Baltic 
States, you talk about a sharp stick in the Russian eye. That 
is it, so I have a lot of hesitation. I understand all three of 
you indicated school is still out in regards to NATO expansion. 
Is that a proper definition?
    Dr. Crouch. I do not know that we would put it exactly that 
way, Senator, but I think yes, and I think the administration 
at this point, from my understanding, has made no commitment 
one way or another on this, but I think it is going to be an 
issue that we are going to have to face in the next year, and 
as I said, my personal views were that I have a very open mind 
on the subject.
    Senator Roberts. Peter, here is another chance.
    Mr. Rodman. I think you are right, obviously no decision 
has been made about who or which. Obviously, there have been 
general expressions by the President that he is leaning 
forward, and there will be a NATO enlargement. I think that may 
be a fair characterization of some of his statements, but 
certainly the alliance as a whole has to be consulted and the 
Senate has to be consulted, so I would express it that as a 
country we are at the beginning of considering exactly what is 
going to happen.
    Mr. Feith. I agree with what both of my colleagues have 
said, Senator. The President has said that we support the open 
door principle within NATO, but there are criteria for 
admitting new members, and those criteria have to be met. There 
has to be a scrupulous review of the circumstances to make sure 
that the interests of the United States and the interest of the 
alliance as a whole are satisfied in the decision about moving 
forward. I share my colleagues' view that this is a very 
serious, important, and difficult subject, and I also will 
approach it with an open mind.
    Senator Roberts. I thank the chair, and I thank my 
distinguished colleague from Oklahoma.
    Chairman Warner. Thank you very much, Senator.
    Senator Levin, we are now on a second round.
    Senator Levin. Thank you, Mr. Chairman.
    Mr. Feith, my difference, and I think the difference a 
number of us have with you relative to ABM does not relate to 
the question of whether or not it would be wise to deploy a 
missile defense system unilaterally and withdraw from the ABM 
Treaty. That is a separate issue, an important issue. The 
problem is, you do not think there is an ABM Treaty. You do not 
think there is an INF Treaty. Our treaties, according to your 
view, are lapsed. INF, you say, you support. There is no INF 
Treaty under your view. You are in sharp difference with the 
Bush administration's own view, which is that there is a treaty 
in effect. They are seeking to modify that treaty. They have 
offered amendments to Russia to modify a treaty that you say no 
longer exists. INF you say you support. On the other hand, 
under your theory, there is no INF Treaty.
    The Incidents at Sea Treaty, which our good chairman, by 
the way, Senator Warner, perhaps I could interrupt just for 1 
second, who negotiated this treaty and signed this treaty, 
there is no Incidents at Sea Treaty any more, I assume, under 
your theory. It has lapsed.
    All right, that one still is with us.
    Mr. Feith. I believe so.
    Senator Levin. OK. I know the chairman will be happy to 
hear. We will ask you for the record what the difference is, 
then, between the ABM Treaty, which you say no longer exists, 
and Incidents at Sea Treaty, which you say does exist, but that 
is for the record.
    [The information referred to follows:]

    Before answering this specific question, I would like to make a 
general comment. I recognize that the position for which I have been 
nominated--Under Secretary of Defense for Policy--is responsible for 
policy, not legal judgments. The Administration will take positions on 
legal questions based on the advice of officials functioning as 
lawyers. The Under Secretary of Defense for Policy is not such an 
official. Even though I am a lawyer, I know that, if confirmed as Under 
Secretary, I would not be making legal judgments for the 
administration.
    Regarding in particular the legal memorandum I co-authored on 
whether the ABM Treaty of 1972 became, upon the U.S.S.R.'s demise, a 
treaty between the United States and the Russian Federation, I wish to 
note that that work was an attempt to describe the law, not to advocate 
what the law should be. As a practical matter, I think the controversy 
over the treaty's legal status has been overtaken by events, for this 
Administration has made clear that it is respecting the terms of the 
ABM Treaty. President Bush has also stated that ``we must move beyond 
the constraints of the 30 year old ABM Treaty,'' but he has made it 
clear that he seeks to do so cooperatively with Russia.
    As Senator Warner noted in the hearing, ``The Incidents at Sea was 
an unusual concept, and it is an executive agreement. It does not have 
a treaty status, but it has served both nations very, very well, and it 
is continually adhered to, and periodically reviews by both nations are 
undertaken.'' Based on legal research I did a few years ago, I 
concluded that, as a matter of international law, all bilateral, non-
dispositive treaties and all other bilateral, non-dispositive 
agreements between the United States and the U.S.S.R. automatically 
lapsed upon the U.S.S.R.'s dissolution in December 1991. In my view, 
nothing prevented or prevents the U.S. executive branch from deeming 
Russia the substitute for the U.S.S.R. with regard to U.S.-U.S.S.R. 
agreements that had come into force without Senate approval of 
ratification. It is my understanding that the U.S. Government deems 
such executive agreements as continuing with Russia as the substitute 
party.
    If confirmed, I will support U.S. Government policy regarding these 
treaties and agreements, deferring on legal questions to the 
administration's legal counsel.

    Chairman Warner. Could I make one clarification? The ABM is 
a treaty in the full context. The Incidents at Sea was an 
unusual concept, and it is an executive agreement. It does not 
have a treaty status, but it has served both nations very well, 
and it is continuously adhered to, and periodical reviews by 
both nations are undertaken.
    Mr. Feith. Mr. Chairman, I appreciate that comment.
    Senator Levin. I am glad to hear that.
    Chairman Warner. I think his fundamental question is still 
in place, because I think the question applies to whether it is 
a treaty or an executive agreement. It was an executive 
agreement at that time with the Soviet Union.
    Senator Levin. The INF Treaty clearly, then, is covered by 
your policy. We can discuss the Incidents at Sea at a later 
time, but you say you support INF. INF no longer exists under 
your theory. It seems to me you are raising such great 
uncertainty when you take that position, and it is in such 
sharp contrast to what the Bush administration is trying to do, 
which is to modify an ABM Treaty, to offer amendments to the 
ABM Treaty, that there is just a very clear difference there.
    But I want to go on. You indicate that you support the INF 
Treaty. You wrote an article at the time that the INF Treaty 
was before us, and this was President Reagan's Treaty. In fact, 
President Reagan noted when he was looking back on his 
presidency that perhaps the most dramatic achievement was when 
he and Mr. Gorbachev signed INF, and yet your article in the 
Christian Science Monitor sure does not sound to me like you 
supported INF. I want to just read you just a couple of lines 
from it.
    ``Despite the general ban on INF systems, various treaty 
provisions could actually facilitate the creation or 
maintenance of a covert Soviet force of SS-20s, the most 
threatening of the Soviet missiles covered. While each such 
provision may seem a minor problem in its own right, taken 
together, they mean that the Soviets, even without violating 
the specific terms of the treaty, could retain a militarily 
significant INF capability.''
    You said that the treaty had corrosive imprecision in that 
article. You said the treaty's defects could only be corrected 
with the Soviets' agreement, which they did not agree to. You 
said that Senators Nunn and Byrd had extracted promises from 
the Secretary of State. You said that the Senators--this is all 
from this one article--you said the Senators evinced little 
concern about the issue which you raised as to whether or not 
the Soviets would agree to the interpretation.
    There is nothing in that article that looks like you 
supported the INF Treaty. The whole article just is full of 
criticism of INF, again President Reagan's, one of his prime 
achievements. How do you say that that article reflected 
support from the INF? Would any reasonable reader get out of 
that article that you were supportive of INF?
    Mr. Feith. Senator, what I was focused on in that article 
were a number of very complex provisions that were discussed at 
some length in this article by article review that I referred 
to before that was published by the American Enterprise 
Institute. What I was focused on there were some provisions 
that I thought were weaknesses in the agreement that could be 
remedied, and I was highlighting them and suggesting that they 
be remedied, and that the treaty would be a lot better if they 
were remedied.
    Senator Levin. Were they?
    Mr. Feith. No.
    Senator Levin. But you still supported the treaty.
    Mr. Feith. I still supported the treaty, but the treaty I 
do believe would have been better had they been remedied.
    Senator Levin. But you still supported the treaty, you say. 
In that article, is there any indication of that support?
    Mr. Feith. No. That article did not deal with that. That 
article dealt with a problem, the remedy of which I was 
advocating.
    Senator Levin. Well, but the rhetoric of this article--let 
us just be fair, OK. Senator Nunn extracted--extracted--
promises from the Secretary of State. He and Senator Byrd and 
Senator Pell evinced little concern as to whether or not the 
Soviets agree to the interpretations which were offered to it. 
The INF Treaty you said is corrosively imprecise. This is in 
the article. This is what you published, to the public, OK.
    Then you say that despite the ban, that they can retain a 
militarily significant INF capability. That is what you tell 
the public. Are you saying that does not clearly evince 
opposition to the treaty? There is no indication there that you 
support the treaty, even if these could be corrected. There is 
surely nothing in here about supporting the treaty if they 
cannot be corrected.
    Now, just look at a fair reader and tell me if anybody 
reading that article would think you supported the INF Treaty. 
I would just like to ask you that question. Would any fair 
reading of that article lead to the conclusion that you support 
the INF Treaty? That is my question.
    Mr. Feith. I believe a fair reader would recognize I did 
not do a net assessment of the treaty in that short article. I 
was addressing myself to a specific problem, and suggesting a 
remedy.
    On the point about corrosively imprecise, I would like to 
say that it has been a theme of much of what I have written on 
the subject of arms control that we should be as respectful of 
the law-making process through arms control treaties as we 
generally are of the law-making process in a country like ours 
that takes law seriously, and frequently for diplomatic reasons 
we allow imprecision to remain in a treaty and it is corrosive.
    Imprecision in these treaties, time after time, gives rise 
to bitter recriminations about compliance disputes, and there 
is nothing more corrosive of the whole process and the whole 
concept of international law than entering into agreements 
where we know in advance we are purchasing for ourselves 
compliance and enforcement disputes.
    Senator Levin. That is the Reagan INF Treaty we are talking 
about, is that right? Just as long as we are talking about the 
same treaty.
    Mr. Feith. I am making a point that applies across the 
board to treaties in general.
    Senator Levin. Your article was referring to the Reagan INF 
Treaty, right?
    Mr. Feith. I said----
    Senator Levin. Is that correct?
    Mr. Feith. Yes.
    Senator Levin. Thank you. My time is up. I want to just 
conclude with one thing, unless we want to just take more time 
on this round.
    Chairman Warner. Go ahead, Senator, if you wish to take 
another question.
    Senator Levin. Where did you evince your support of the INF 
at the time?
    Mr. Feith. I did not. I was not invited to testify. It was 
not an area of my responsibility when I was in the Pentagon. I 
was not a major voice on the subject.
    Senator Levin. But you say that you did support it at the 
time.
    Mr. Feith. Yes, but I was not a major participant.
    Senator Levin. I understand that, but I just want to be 
real clear. It is not just that you support it now, but at that 
time you supported it.
    Mr. Feith. Yes, sir.
    Senator Levin. Would you just furnish to the committee, if 
you will, a copy of--because we have not been able to get it--
the analysis which you made for the American Enterprise 
Institute?
    Mr. Feith. Oh, sure.
    Senator Levin. Thank you.
    Thank you very much.
    [The information referred to follows:]

                                          Douglas J. Feith,
                                                      June 7, 2001.
Hon. Carl Levin, Chairman,
Senate Armed Services Committee,
Senate Russell Office Building,
Washington, DC.
    Dear Mr. Chairman: Thank you for the serious consideration and 
courtesy you have extended to me in the confirmation process despite 
our different points of view on certain matters. It was an honor for me 
on Tuesday to discuss such significant issues with you at such length 
in so important a forum.
    Enclosed, as you requested, is a copy of (1) the February 3, 1988 
``Article-by-Article Review of the INF Treaty'' and (2) the May 18, 
1988 ``Further Review of the INF Treaty: Seven Key Issues'' by the 
American Enterprise Institute (``AEI'') Working Group on the INF 
Treaty, of which I was a member. In his introduction to the former 
paper, AEI's president, Christopher DeMuth, states:

        ``The purpose of the working group's analysis is not to support 
        or oppose ratification of the INF Treaty; indeed the group 
        includes individuals on both sides of the ultimate issue before 
        the Senate.''

    As you may know, Richard Perle, also a member of the AEI Working 
Group, testified before Congress in favor of the INF Treaty.
    Reflecting on my confirmation hearing exchanges with you regarding 
the INF Treaty, I would like to clarify a point regarding my having 
supported the INF Treaty when it was under Senate consideration. I 
supported the treaty in that, on balance, I favored approval of 
ratification. My role in the ratification debate was limited, however. 
I do not recall testifying before Congress, appearing on any television 
or radio shows or publishing work about the INF Treaty other than the 
AEI Working Group reviews and the single April 6, 1988 Christian 
Science Monitor op-ed piece, co-authored by me, that you cited.
    The Monitor op-ed urged the Senate to clarify with the 
administration certain INF Treaty language issues and to ensure a 
meeting of the minds on those issues between the U.S. and Soviet 
governments. As I mentioned in the confirmation hearings, treaty 
ambiguities gave rise during the Cold War to many bitter U.S.-Soviet 
exchanges that strained relations and eroded respect for arms control 
and international law. Believing that efforts to craft precise language 
should be as serious in the field of international law as they are in 
the field of ordinary U.S. domestic law, we wrote in our op-ed: 
``Fortunately, the Senate can yet ensure that the INF Treaty is free of 
corrosive imprecision.'' The op-ed concludes:

        ``[Correction of the specified defects]--by and large--would 
        entail nothing more than conforming the details of the treaty 
        to the already accepted general obligations. This should make 
        it a worthy and eminently doable task.'' (Emphasis in original)

    I am sending a similar letter also to Senator Warner.
    With best wishes, I remain
            Yours truly,
                                                  Douglas J. Feith.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Warner. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    We have a lot of areas that we have not gotten into yet, 
and we have discussed quite a bit about contingency operations, 
about what shall we do now in Bosnia and Kosovo, but I would 
like to talk a little bit about a policy that we would 
formulate for something like this coming up in the future.
    I can remember so well our resolution of disapproval back 
in 1995, of getting into Bosnia, and we lost it by 3 votes, and 
it was only because the President gave a guarantee. I remember 
hearing him say it, that we would be there only 12 months, and 
all the kids would be home for Christmas in December 1996. Of 
course, we are still there, and I think most of us knew they 
still would be there. It is easy to get in. It is hard to get 
out.
    I think moving to Kosovo, it was purely a humanitarian 
motivation to send our people in there. I was over there during 
this time because I knew that that was going to happen, and I 
was trying to build a case to keep us from doing that.
    I can remember a very prominent TV person was filming the 
burning of a mosque. It was the only mosque that was burned, it 
is my understanding, during that time, but from every possible 
angle. When he got back home you assumed every mosque was 
burning down, which we know what happened to 52 Serbian 
Orthodox Christian churches after this thing, after we got 
involved in it.
    I guess my point is, as a policy--it sounds kind of 
hardened to say this. It is not that we are not all very 
sensitive to humanitarian problems, to genocide, to ethnic 
cleansing, but we are in a position where--at least I am, as 
Chairman of the Readiness and Management Support Subcommittee, 
in recognizing that we at that time are one-half the force 
strength that we were during the Persian Gulf War, and that 
means one-half the Army divisions, one-half the tactical air 
wings, one-half the ships floating around out there, and yet 
with the greater threat than immediately following the Persian 
Gulf War, and I think everyone agrees to that.
    Things are volatile in the Middle East, volatile in Korea, 
and to use our limited military assets in areas like Kosovo and 
Bosnia and some of the other areas is wrong as policy, because 
now we see we can get in, we cannot get out.
    I am involved in something that I guess some people refer 
to as mission work in West Africa. I am talking about Cote 
D'Ivoire, Benin, Nigeria, Togo, Gabon, both Congo, Kinshasa and 
Congo Brazziville, and yet during the time that we were making 
that decision to go into Kosovo, for every one incident of 
ethnic cleansing in Kosovo, there are probably 100 on any given 
day in West Africa.
    I would like to hear--you may want to answer this for the 
record, but any thoughts that you have on what our policy 
should be, particularly during this time that we have not 
rebuilt our defense system, and particularly at this time with 
the threat that we are faced with out there that has been 
characterized by people like George Tenet, Director of the CIA, 
as being the most threatened position we have been in as a 
Nation, what our policy should be regarding involvement in the 
future in using humanitarian justifications for that 
involvement. Just each one of you, any comments you want to 
make?
    Mr. Rodman. Let me start, Senator. You have asked a good 
question, really, because I think all of us, the President, 
many people in Congress, are uncomfortable with the way we seem 
to get drawn into things, but many people who have attempted to 
draw up a list of criteria, as if a checklist would tell us in 
any given case whether it is a place to go in or a place to 
stay out, and I am not sure----
    Senator Inhofe. Well, I might interrupt you at this point 
and say that Senator Roberts did develop one, put it into the 
statutes, and they were not followed anyway, so maybe that is 
not too important.
    Mr. Rodman. Well, it is very relevant. I remember, I read 
over Secretary Rumsfeld's confirmation hearing, and he had a 
discussion with Senator Roberts about some of the criteria that 
Senator Roberts had listed. For example, I do not think there 
is any way you can guarantee public support for an enterprise, 
and what Secretary Rumsfeld said was, we saw in the Gulf War 
that a President can help to shape public support if he 
educates the public that in a particular case there is a vital 
interest involved, and I think President Lyndon Johnson found 
out that you can start with public support and squander it, so 
I do not think there is a checklist.
    Another point that Secretary Rumsfeld mentioned was, of 
course, as a general principle, if we go into something we 
should go in overwhelmingly and decisively, and that is a good 
principle, but the Secretary mentioned, well, there is always a 
case of a pre-crisis situation when maybe an application of a 
smaller amount of force can head off a major crisis, so the 
variety of cases that we are going to be confronted with, there 
is no way to have a procedure that is going to answer all the 
questions.
    I think we have to pray as Americans that if another case 
comes along, that the President and Congress and the public 
will have an intelligent debate and give voice to all of these 
considerations, and not be driven by media pressure, and to 
look at it and cold--well, I will not say cold-bloodedly, but 
analytically, and understand what the costs would be to our 
readiness, because I think when a case comes along it is going 
to have its own unique features, and we have to have the 
discipline as a country to look at the situation carefully, 
consult among the two branches of Government to make sure there 
is some national unity on this.
    I think the mood I sense is that as a country we are 
uncomfortable with how far we have been drawn into things, and 
that this is a time when I think the country is ready for some 
restraint, and to show some restraint, and to hope that other 
countries can be brought in, that we can share responsibility.
    You mentioned Africa. I think one interesting thing that 
both his administration and the previous administration did was 
with Nigeria, to help train Nigeria to take a greater 
responsibility for peacekeeping in West Africa, so we have to 
engage other countries. Maybe that is one principle that we can 
count on, that we should always look in the first instance to 
see if others can do it, and maybe we can help them, backstop 
them.
    Those are my thoughts on this, but it is a question that 
will not go away.
    Senator Inhofe. Any other thoughts on this?
    I always keep in mind that if you are looking at the public 
to see how that barometer is going out there, they are assuming 
some things that are not true. For example, during that time 
that those decisions were made in both Bosnia and Kosovo, the 
general public probably, in fact definitely, according to 
polling data, did not know the crisis that we were in, in terms 
of what happened to our military.
    They thought, well, our cup runneth over, we have 
everything we need, let us take care of these poor people out 
there, without any knowledge of other places in the world that 
this is going on.
    So we are dealing with a policy, and I think it needs to be 
specific, and any comments you want to make now, and then maybe 
elaborate a little bit more for the record, because it is going 
to happen again.
    Mr. Rodman. No, I will provide some further thoughts, 
Senator, if you like, definitely.
    [The information referred to follows:]
                       Humanitarian Intervention
    What should our policy be with respect to humanitarian 
intervention?
    The United States should be selective in its international military 
interventions, especially where there is a danger of combat. As 
President Bush said at The Citadel on September 23, 1999, ``If America 
is committed everywhere, our commitments are everywhere suspect.'' My 
personal view is that U.S. combat troops should generally be reserved 
for the most significant strategic challenges to the international 
order.
    At the same time, the United States will not be able to, nor should 
it, remain indifferent to significant humanitarian crises. But in these 
cases, we should seek as a first resort to help develop mechanisms 
whereby other nations can work together and take the leading 
responsibility. East Timor and West Africa are examples. The United 
States may be willing to provide assistance but others should take the 
lead wherever possible.

    Senator Inhofe. I will wait till the next round. My time 
has expired.
    Chairman Warner. Thank you very much. The chair wishes to 
observe the hearing has been in progress now for 2\1/2\ hours. 
We have present a number of wonderful children who have joined 
us. It may be in the interest of all if we took about a 3- to 
4-minute break so that maybe the children could say goodbye, 
daddy, you are on your own. [Laughter.]
    Whatever the case may be with your families, and then we 
will resume, so let us just take 3 or 4 minutes.
    Senator Roberts. We appreciate the break for additional 
reasons, Mr. Chairman. [Laughter.]
    Chairman Warner. Thank you very much. I hope the Senator 
from Georgia would understand. [Recess.]
    Thank you. We will resume the hearing, and the chair 
recognizes the Senator from Georgia.
    Senator Cleland. Thank you very much, Mr. Chairman. I just 
want to echo the thoughts of the distinguished Senator from 
Oklahoma, Senator Inhofe, about the ease in which a major power 
can get drawn into conflicts abroad.
    Mr. Chairman, you like quotes, and there are a couple of 
quotes I have on that point. Napoleon once said that wars are 
easy to get into and hard to get out of, and second, Wellington 
once said that no great nation can have a little war, so there 
is no such thing as a little engagement for the United States.
    I will say, Mr. Feith, you mentioned that the President's 
national missile defense program was not aimed at Russia and 
China. Who is it aimed at?
    Mr. Feith. Senator, the President has said that the purpose 
of the missile defense program will be to deal with the missile 
threat from rogue states, and the threat from accidental or 
unauthorized launches.
    Senator Cleland. Let me get into this now. I mean, it is 
pretty obvious that the rogue state might be a North Korea. I 
want to get into the whole North Korea issue, Dr. Crouch.
    In 1995, you wrote in the Journal of Comparative Strategy, 
the Bush administration--this is President Bush, Sr.--the Bush 
administration's decision to withdraw tactical nuclear weapons 
from South Korea was a major geopolitical mistake. Do you 
believe that now?
    Dr. Crouch. I believe that at the time, Senator, that the 
United States had nuclear weapons on the South Korean peninsula 
for many decades. My sense was that at a time when the North 
Koreans were developing their own nuclear capability, that it 
was not prudent, it was not wise for the United States to 
withdraw in effect its tactical nuclear systems that were 
deployed there, because I believed those represented the best, 
most effective deterrent to the use, not only of a potential 
North Korean nuclear weapon, but also the use of at the time 
North Korea's overwhelming conventional capability.
    Senator Cleland. Let us just look at it. I mean, it is no 
secret that we ring the Korean peninsula with substantial sea 
forces, both submarine forces and other forces, and that we 
pose a powerful deterrent to any action that the North Koreans 
might pursue.
    But let me ask you again, do you believe the Bush 
administration's decision to withdraw tactical nuclear weapons 
from South Korea was a major geopolitical mistake, and do you 
believe that now?
    Dr. Crouch. As I said earlier, at the time, I stand by my 
statement, I believed it was. Today, I believe the 
circumstances have changed dramatically. I mentioned a few of 
those changes. One, I would say, that I think is very 
important, in addition to the lessening of tensions between the 
North and the South, is the fact that the South Korean military 
is in a much better position to withstand an attack from North 
Korea. That is to say, the conventional disparity that existed 
10 years ago is not the same as it is today, so today I do not 
believe it is critical to reintroduce tactical nuclear weapons 
in South Korea.
    Senator Cleland. Your article was written 6 years ago, not 
10 years ago, and in that same article just 6 years ago you 
recommended the U.S. redeploy nuclear weapons to South Korea to 
demonstrate our nuclear commitment to a U.S. ally and maintain 
the means at hand to respond to the North Korean nuclear 
attack. Do you think we ought to introduce tactical nuclear 
weapons in South Korea now?
    Dr. Crouch. When I said 10 years ago, Senator, I was 
referring to the approximate time frame when they were 
withdrawn, not the time of the article.
    As I said, I believe--if you go back to 1994, the situation 
then was very different than it is now. It was the end of the 
Kim Il Sung regime, tensions were high between the North and 
the South we had discovered, the Clinton administration had 
discovered a major nuclear program, and were very concerned 
about that program, and I believed that in light of those 
discoveries, at the time, yes, it was a geopolitical mistake.
    I believe the circumstances have changed today, and 
consequently, today I would not be arguing for the 
reintroduction of tactical nuclear weapons into South Korea.
    Senator Cleland. In 1995 you also recommended the United 
States, quote, set a firm deadline for the destruction of North 
Korea's nuclear complex and its long-range missile production 
facilities, absent positive visible steps from the North Korean 
regime towards this end, authorize the destruction of as much 
of this complex as possible by U.S. and allied air power.
    Do you think we ought to do that today?
    Dr. Crouch. Senator, I think again circumstances have 
changed, so the answer would be no.
    Senator Cleland. Were you ever in the American military?
    Dr. Crouch. No, sir.
    Senator Cleland. In 1993, you criticized Senators Hatfield, 
Mitchell, and Exon for their amendment to the Energy and Water 
Appropriations bill that led to a moratorium on nuclear testing 
in the United States, saying those who supported a ban on 
nuclear testing--this is 1993 now--were using, quote, Luddite 
logic, end of quote.
    Now, President Bush has indicated during his campaign that 
he supported the current U.S. moratorium on nuclear testing. Is 
he a Luddite? Is he using Luddite logic?
    Dr. Crouch. No, sir. My concern about nuclear testing that 
was evinced in that article is simply that nuclear weapons are 
the most awesome explosive power that man has yet invented, and 
hopefully we will not invent one that is more awesome, or more 
explosive, but that we continue to rely on nuclear weapons, and 
I believe this position was reaffirmed by President Clinton. We 
continue to rely on nuclear weapons as a primary deterrent of 
aggression, deterrent to the use of nuclear weapons against the 
United States, as well as against our allies, as well as the 
use of conventional weapons against the United States and our 
Armed Forces.
    My view was that we needed to know, and continue to know, 
as much as we can about those weapons, and what, in fact, a ban 
on nuclear testing was, was a ban on knowledge about this very 
awesome capability, so my argument really was that nuclear 
testing per se, as long as we are going to continue to rely on 
nuclear weapons, was an important part of understanding and 
enhancing the safety and reliability of that force.
    Senator Cleland. Do you support the Comprehensive Nuclear 
Test Ban Treaty?
    Dr. Crouch. No, sir.
    Senator Cleland. You also refer to economic sanctions as, 
quote, that great panacea of western inaction. We have economic 
sanctions on Cuba, Iraq, Iran, and Libya. Do you think we ought 
to lift those sanctions? Do you think that is the great panacea 
of western inaction?
    Dr. Crouch. When I use the term panacea in that context--
the direct answer to your question is no, I do not believe we 
ought to. What I think I was pointing out is that sometimes 
democracies have a tendency to use sanctions, and to have a 
belief in sanctions as the only possible response to things.
    I believe that sanctions have an important role. They can 
send many signals. They may, in fact, be sending a moral signal 
about a particular issue. They may in certain particular cases 
be able to be applied and be effective, and so I support that 
use of it, but I think sometimes, in some cases, sanctions are 
utilized when we simply cannot figure out what else we want to 
do.
    Senator Cleland. Well, Dr. Crouch and Mr. Feith, your 
answers have been very troubling to me, and I want you to know 
that, and it is going to be an agonizing thing to go over your 
testimony. There are numerous questions I have which I will not 
ask now, my time is up, but I would like the opportunity to 
submit some questions to you in writing.
    Thank you, Mr. Chairman.
    Chairman Warner. I thank my good friend and colleague from 
Georgia. I do wish to say the following. You have referred to 
these nominees, which is your right, with regard to their 
previous military experience, or the absence of that. They have 
responded.
    I wish to note that in the 23 years that I have been 
privileged to be in Congress I have seen a steady decline 
within the ranks of our Congress of those who have had military 
service, and I think the nominees coming before the Senate 
today, whatever their positions are, reflect, again, the 
generational changes.
    You and I are of a different generation. Your service is 
extraordinary. Mine was very modest to the country, two 
opportunities, but I do not know the details of these 
gentlemen, but I just observe it seems to me their demographic 
backgrounds parallel in many respects the decline in Congress 
of the United States.
    On the question of testing, I followed that very carefully, 
those important questions by my colleague from Georgia, but I 
have grave concerns about the future of the stockpile 
stewardship program into which we are plowing billions of 
dollars in the hopes that generations of computers can at some 
point in time give us the same reassurance that you mentioned.
    Most importantly, Dr. Crouch, that it is the safety and 
reliability of our stockpile, 1) to the people who must deal 
with the weapons every day in one fashion or another, 2) to the 
environs in our country and elsewhere in the world where there 
are other persons in the proximity of the storing or otherwise 
deployment of these weapons, and 3) the credibility of the 
doctrine of deterrence on which these weapons are the very 
foundation, and that comes to the heart of stockpile 
stewardship and testing and credibility, so I must say, I think 
your responses are consistent with the views held by the chair.
    Also, with reference to the ABM Treaty, I think it is a 
very important issue. We have covered it thoroughly. I 
mentioned some modest association I had back in 1972. I was not 
a principal, but I was in a position to observe how this thing 
evolved within the Department of Defense over the 2 years, 
roughly, 1969 to 1972, when I was there, the importance of this 
treaty to the overall stability between the Nations. I think 
our President is pursuing this issue in the right way, and I 
wish to read his comments into the record on this.
    President Bush said, and I quote him, ``we need a new 
framework that allows us to build our missile defenses to 
counter the different threats of today's world. To do so, we 
must move beyond the constraints of the 30-year-old ABM Treaty. 
This treaty does not recognize the present or point to the 
future. It enshrines the past. No treaty that prevents us from 
addressing today's threats and prohibits us from pursuing 
promising technology to defend ourselves, our friends, and our 
allies, is in our interests, or the interests of world peace.''
    I agree with every word of that, and I commend our 
President for his initiatives in this area, and I intend to 
strongly support him.
    Let us return to this issue of the NATO expansion. I just 
wish to make one further observation. My concern, Dr. Crouch, 
is with the Baltics, and I really believe that before we give 
serious attention to their admission we had better have behind 
us a resolution of the ABM issues. I just make that observation 
for the record.
    The general subject of civilian oversight of the military 
and most particularly the engagement of policy, this committee 
looked into and continues to look at aspects of the U.S.S. 
Cole, and we had as our first witness a man in whom I repose 
great confidence and respect for his judgment, General Zinni. 
He fully accepted his role of accountability for selecting that 
port, or accepting a recommendation within the administration 
for the use of that port for a refueling mission.
    Now, hindsight tells us a lot of things we could have done 
and perhaps should have done, but the point is, I think, Mr. 
Feith, we want to make certain that the missions of our 
forward-deployed forces receive the constant scrutiny and 
oversight by the civilian side of the Department of Defense.
    We do not want to micro-manage, of course, what the CINCs 
are doing. We chose them carefully, put them in those positions 
because of the capability we repose in them to handle those 
responsibilities, but I just think this record should reflect 
your own views on the necessity for constant civilian oversight 
and monitoring with respect to our forward-deployed missions 
and forces.
    Dr. Crouch. Mr. Chairman, the strength of civilian 
oversight of the military is, I think, an important part, 
attributable to the work that this committee has done, and the 
Goldwater-Nichols legislation has made the point in principle, 
and has created the means by which there could be more 
effective civilian control of the military. This is the point 
that I know I, and I believe my colleagues also have taken to 
heart, and we can assure you that this is a part of our 
responsibility that will be at the fore of our minds, if we are 
confirmed for these positions.
    Chairman Warner. I thank you on that. I think it is 
important that our record today take note of the very serious 
developments with regard to the security of the State of 
Israel. I think that I would like to ask each of you to give 
your views as to what this country should do, and are we doing 
that in your judgment at this time to hopefully bring about a 
cessation of the hostilities and to foster such formal 
agreements as really those two nations can evolve in the 
future?
    Mr. Feith.
    Mr. Feith. Mr. Chairman, I agree that we have an important 
relationship with Israel that is based on our shared culture, a 
common commitment to democracy, and shared strategic interests. 
President Bush referred to the U.S. commitment to Israel as 
rock-solid, and Congress has been for decades an important and 
effective champion of close U.S.-Israeli strategic and 
political ties.
    I share your concern about the current situation, which is 
really dreadful. I think that President Bush and Secretary of 
State Powell have played a delicate and intelligent role in 
stressing that any hope for fruitful diplomacy hinges on a 
cessation of the violence. I believe this morning's newspapers 
highlighted the very sharp message that this administration is 
sending to the Palestinian authority to bring the violence to 
an end.
    I think that President Bush and the entire administration 
is handling this difficult matter as well as one can under the 
very unfavorable current circumstances.
    Chairman Warner. Mr. Rodman.
    Mr. Rodman. I want to second what Doug said about the 
American commitment to Israel. The Department of Defense, of 
course, has a significant role to play in giving content to 
that support.
    As for the diplomacy, it is clearly the State Department, 
Secretary Powell, that takes the lead under the guidance of the 
President. They are putting the emphasis correctly on an end to 
the violence. If I should be confirmed, and if I have any role 
to play in ISA in support of administration policy, it would be 
definitely in support of what the State Department is pursuing. 
I hope I can contribute to some coherent American strategy for 
strengthening peace, promoting some diplomatic progress.
    Chairman Warner. Dr. Crouch.
    Dr. Crouch. Senator, this is not an area that will be in my 
area of responsibility, but I think it is so important that you 
should have my views on it. I think it is extremely important 
that the United States continue to support Israel.
    I have held that view for a very long time, and I think 
that we really need to maintain that support for a whole host 
of reasons, but the ones that are based in our national 
interests, but at the same time I think it is important to 
recognize the importance of Israel as a democracy, a 
functioning, vital democracy in the Middle East, in a place 
where democracy is not flourishing in many respects.
    So I commend the President. I think he has struck the right 
balance. I think calling for an end to the violence is exactly 
the beginning, but it of course is just the beginning of coming 
to some sort of genuine resolution to the conflict. Like I 
said, I am not going to be involved in these issues very much 
directly, but I certainly would echo the views of both of my 
colleagues.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Mr. Chairman, thank you. On the chemical 
weapons issue, Mr. Feith, you wrote the following about the 
Chemical Weapons Convention.
    You said it would cheapen the currency of international 
law, that it was junk arms control, that President Bush, 
obviously, you argued made a mistake in negotiating it. You 
also stated in another article that it was modeled after a 
concept in the Nuclear Nonproliferation Treaty which aims to 
reward States that renounce chemical weapons by providing them 
with chemical technology and material for, quote, peaceful 
purposes, close quote. Then you referred to those provisions as 
the poisons for peace provisions, and you said that the 
provisions would require the sale to Iran of an advanced 
chemical plant.
    Given your strong rhetoric against that convention, which 
had been negotiated by President Bush, do you believe we ought 
to withdraw from it? You have indicated, well, it is law, it is 
done, but there is a withdrawal clause, and you obviously 
disagreed with President Bush when you attacked that treaty, 
called it junk arms control, called it cheapened the currency 
of international law. Should we withdraw from it under its 
withdrawal provision?
    Mr. Feith. Senator, I do not advocate withdrawing from the 
agreement. The point about cheapening the currency, though, I 
would like to say a word about, and that is, I really do value 
and take seriously international law, and that is the reason--
the fact that I respect international law and think that we as 
a country have to respect it, and that I take diplomacy and 
treaties seriously, is what gives rise to the comment that we, 
if we make agreements that we cannot enforce, and that we have 
good reason to believe are going to be violated and are going 
to be open to countries that enter them cynically and in bad 
faith, the overall consequence of that over time is to cheapen 
the currency that we should really be preserving the value of.
    It is out of respect for the idea of diplomacy and 
agreements that we enter into that I am unhappy when I see that 
we are entering into an agreement that I know is going to bring 
the whole field of international law into problems.
    Senator Levin. But specifically you did say, did you not, 
that the Chemical Weapons Convention will cheapen the currency 
of international law? As applied to that treaty, which had been 
negotiated by President Bush, you said that convention will 
cheapen the currency of international law, and was junk arms 
control. I am just asking you, is that accurate?
    Mr. Feith. Yes, that is accurate.
    Senator Levin. But you still think we ought to not pull 
out?
    Mr. Feith. As I said, Senator, the ratification process 
ameliorated some of the problems with the convention, and also 
the set of considerations that would go into pulling out of a 
treaty once one is in it are somewhat different from the set of 
considerations that govern the decision whether to enter into 
it in the first instance.
    Senator Levin. Chairman Warner asked each of you about the 
position towards Israel. I want to ask you a slightly different 
question. I agree, by the way, with your answers, but this 
question is a little bit different.
    Mr. Feith, you wrote that Israel should consider developing 
a credible strategy to repudiate Oslo. This was in an article 
that you wrote, A Strategy for Israel, and is it true that you 
then urged Israel to develop a credible strategy to repudiate 
Oslo in light of the Palestinian Authorities' irredeemable 
malfeasance? Is that what you were recommending, that they 
develop a strategy given the PA's activities?
    Mr. Feith. Senator, what I was recommending was that the 
Israelis work on devising a means to deal with what I 
considered to be one of the major problems that was undermining 
the Oslo process, and that was the problem of unremedied 
violations, systematic violations that the United States and 
Israel both were trying to remedy, but were trying 
unsuccessfully.
    What I had in mind was, to use an analogy, if somebody goes 
into a car dealership to buy a car, and the car salesman knows 
that the customer cannot possibly leave the showroom without 
buying the car, that customer has no leverage. Only the threat 
that an unsatisfactory resolution of a problem or an 
unsatisfactory agreement will lead one party to walk away gives 
the party leverage. What I was saying is, after years of 
violations and compliance disputes and unsuccessful efforts to 
enforce the agreements, if the Israelis do not have a credible 
strategy for doing something outside the process, they will 
have no leverage to fix the process. It is crucial to the 
success of the process that the Israelis in my view have 
appropriate leverage to deal with the violations problems.
    Senator Levin. Very specifically, what you were 
recommending, though, in order to achieve that leverage, was 
that Israel develop a credible strategy to repudiate Oslo, or 
in your own words, abrogating Oslo, is that correct?
    Mr. Feith. As I said, if they do not have any credible 
strategy for doing that, they have no leverage, and then the 
process dies of the violation problem.
    Senator Levin. I am first trying to make sure that I 
understand. So it is clear that you were recommending that they 
have a strategy to repudiate or abrogate Oslo?
    Mr. Feith. Yes.
    Senator Levin. Now, do you believe they should, under these 
circumstances that exist today, abrogate or repudiate Oslo?
    Mr. Feith. Senator, I would be very pleased, and I think 
that the United States would be benefitted, if the Oslo process 
produced a consensual resolution of the Arab-Israeli conflict, 
but the Oslo process is in bad shape right now.
    Senator Levin. I could not agree with you more. My 
question, though, is, are you recommending that Israel 
repudiate or abrogate Oslo?
    Mr. Feith. No, Senator. What I am recommending is that 
serious attention is required to do what needs to be done to 
fix the situation, and there is a problem of leverage. There is 
a problem of how one goes about fixing the situation. If the 
status quo is simply maintained without serious thought about 
alternatives that are better, different, the current situation 
will simply deteriorate, in my view.
    Senator Levin. I do not disagree that the status quo is 
unacceptable, that the situation has deteriorated. I have no 
difficulty with that. I just want to get real clear, because I 
think once you write these kind of words, it is important, 
given the position to which you have been nominated, that you 
be clear on whatever your point of view is, you be clear on 
this question, so I am going to ask you again, under all of 
these circumstances, given all of the deterioration, given all 
the facts, that the status quo is horrific, do you at this time 
recommend that Israel abrogate or repudiate Oslo? That is my 
question.
    Mr. Feith. No, Senator, I do not, nor did I advocate that 
in that article. I said that they needed to have a credible 
strategy to do that in order to remedy the problem.
    Senator Levin. Mr. Rodman, do you want to comment? Do you 
recommend that?
    Mr. Rodman. No, I do not. I was caught by surprise by Oslo 
when it was signed. I had been for many years hoping that we 
could find some other leadership of the Palestinians to deal 
with, other than the PLO, but I think once Oslo was a reality, 
particularly since Prime Minister Rabin was somebody I had 
enormous respect for, I thought that the task of our diplomacy 
was to somehow make it work.
    Senator Levin. Dr. Crouch.
    Dr. Crouch. Senator, this is not an issue I have given a 
great deal of thought to. I am not an expert specifically on 
the Oslo Accords.
    Senator Levin. Thank you. My time is up. Thank you.
    Senator Inhofe. Thank you, Mr. Chairman. Several questions 
have been asked during the last 2 or 3 hours about the 
amendments proposed by President Bush to the ABM Treaty. Does 
either one of you know of any specific amendments that the 
President has proposed to the ABM Treaty?
    Mr. Feith. Senator, I do not believe he has proposed any 
specific amendments.
    Senator Inhofe. Do the rest of you? OK.
    Chairman Warner. Excuse me, I think that is an important 
clarification. I certainly know of none, and I would have 
thought he would have some----
    Senator Inhofe. Nor do I, Mr. Chairman.
    Dr. Crouch, I think when Senator Cleland asked a question, 
it was a very good question, he said, national missile defense 
system against who, and I think you answered it, but it was not 
quite as elaborate as I would like to get into.
    You place emphasis on the actions of China and North Korea 
and Russia regarding the sale of weaponry all the way around 
the globe recently, or in the first part of this year. The 
Chinese personnel were found in Iraq upgrading their IAD, their 
integrated air defense system network with fiber optics. We are 
talking about SAMs, we are talking about artillery, and we are 
also talking about the fact that nearly every day they are 
using this to fire on our pilots that are over there.
    North Korean weapons are scattered around the Middle East, 
posing a threat to United States servicemen and women and our 
allies. Most notably, are Russia's close military ties with 
Iran, selling diesel submarines and technology for their Shehab 
III and IV missiles. Now, those are medium-range missiles which 
work very good with the guidance systems that they will get, 
that we assume they are getting from Russia. They are good. I 
mean, they are accurate, much more accurate than they were.
    So I would hope, Dr. Crouch, that you would keep that in 
mind. I hear so many times, they say, well, China is not going 
to do anything, Russia is not going to do anything, North Korea 
is not going to do anything. Now, I am not ready to assume 
that, but even if we did assume that, it is very specific that 
these systems that these countries have, and this technology, 
is being readily traded with countries like Iraq and Iran and 
Syria and Libya and other countries. Do you have any comments 
about that, Dr. Crouch?
    Dr. Crouch. Yes, Senator. If confirmed, one of my 
responsibilities will be, in addition to overseeing policy 
having to do with missile defense, overseeing policy having to 
do with counterproliferation. I see these two issues as very 
integrally linked, and I think the President has also 
demonstrated that in looking forward at the potential emerging 
threats, that missile defense can help to play a role in our 
counterproliferation strategy.
    As you pointed out, it may well be that Russia and China, 
or even North Korea, do not use their missiles, but it may well 
be that their missiles fall into the hands, or missile 
technology falls into the hands of others who will.
    Senator Inhofe. Others who have said they would, such as 
Saddam Hussein said 10 years ago.
    Dr. Crouch. Right. I believe Mr. Quaddafi also made a 
similar statement, so it seems to me that to the extent that a 
missile defense system can help to devalue ballistic missiles, 
to the extent that the United States can demonstrate that its 
forward-deployed forces, its friends, its allies and, indeed, 
the United States itself, is defended against these missiles, 
it seems to me it places downward pressure on the interests of 
these countries in investing their scarce resources into these 
technologies. It is not a solution, but it is part of the 
solution.
    Senator Inhofe. I would like to mention one other thing I 
do not think has been mentioned during the course of this 
hearing, and that is the quality of our intelligence.
    I think as you make policy, you are going to have to make 
policy predicated on information that we have, and I do not 
think it has been--it has not been good. I can remember the 
National intelligence estimate of 1995, I guess it was, that 
talked about how long it would be before various countries, 
including North Korea, would have the capability of an ICBM, 
and they were off by about 15 years, and then they qualified 
that by saying, well, we were talking about an indigenous 
system.
    I am not concerned about indigenous systems. I am concerned 
about a rocket that comes over here that is going to be just as 
devastating, whether it is indigenous or came as trading 
technology with some other country. There are no two people in 
the United States Senate who are more familiar with this than 
Don Nickles and myself from what happened in Oklahoma City. I 
always comment that the damage that was done, which is the most 
devastating domestic terrorist attack in the history of this 
country, in Oklahoma City, was done with the explosive power 
comparable to 1 ton of TNT.
    I think it is accurate to say that we do not know, at least 
I do not know of any nuclear warheads of less than a kiloton, 
so it would be a thousand times that power, so it is a great 
concern of mine, and it was a concern of mine back when we 
asked the question, back in 1998, of how long it would be 
before North Korea would be able to have the capability of a 
multiple stage rocket.
    A letter that was signed by Henry Shelton--and I do not 
blame him for this, because he was depending on information 
that he got from our intelligence community, saying it would be 
a matter of years before they would have that capability--was 
dated August 24, 1998, and 7 days later they fired one. So do 
any of you want to comment on plans that you have to upgrade 
the level of information that we get from our intelligence 
community?
    Dr. Crouch. Senator, the subject that you have highlighted 
is absolutely crucial to the making of policy, and I know that 
it is a subject that is front and center in Secretary 
Rumsfeld's view, and Deputy Secretary Wolfowitz, as I have 
heard them publicly and privately both stress the importance of 
precisely the points that you are making about the need to 
improve our collection capabilities and our analysis in the 
intelligence field.
    Senator Inhofe. That is good, and I am certainly hopeful 
that the three of you will be confirmed, and that we will be 
able to address that so that you will be able to perform your 
duties predicated on accurate information.
    Since my time has expired, I do have one question that I 
would like to ask, and then you could answer it for the record. 
Some of us around here are old enough to remember the Cuban 
missile crisis, and there was recently a movie that was written 
about it called Thirteen Days, Mr. Chairman, which I have not 
seen, but was about waking up one morning finding that several 
of our American cities were targeted by Russian missiles 
located on Cuba. At that time hysteria hit the street and 
everyone was concerned, and this movie is about 13 days during 
that hysteria, and also about the fact that our President then, 
President Kennedy, did a very fine job of getting us out of 
that mess. Yet today we have in 1998, there was a release, an 
accidental release, I might add, of a CIA report that showed 
that around 13 American cities are currently targeted with 
Chinese missiles, and we have the same defense system today 
that we had back during the Cuban missile crisis. We do not 
have the capability of knocking down one that is incoming.
    That, coupled with the statements that have been made by 
various Chinese officials, one back during the elections, when 
the Chinese were demonstrating off the Taiwan Straits, I think 
to try to intimidate that election, when the statement was made 
that we will not worry about the United States coming to our 
aid because they would rather defend Los Angeles than Taipei. 
Then even more recently, the defense minister of China said 
that war with America is inevitable. I would like to have you 
respond for the record your opinion as to the relative risk 
that this Nation is facing now versus during the Cuban missile 
crisis.
    [The information referred to follows:]
                            National Threats
    How would you compare the relative risk that this Nation is facing 
compared to that faced during the Cuban missile crisis?
    The CIA's National Intelligence Council has acknowledged, in its 
September 1999 response to the Rumsfeld Commission Report on the 
missile threat that, ``the possibility that a WMD-armed missile will be 
used against U.S. forces or interests is higher today than during most 
of the Cold War.'' This refers mainly to U.S. forces abroad or allies 
and friends, and reflects the proliferation of ballistic missiles and 
WMD capabilities into unfriendly hands.
    As for the risk to U.S. territory, this in my view is less today 
than in 1962, but is certain to increase over the next 5-10 years. The 
U.S.-Russian relationship is far more benign today. The number of 
weapons on both sides is greater but the ideological conflict has 
disappeared. It is hard to imagine a political issue or dispute that 
could lead to a U.S.-Russian military confrontation like that over Cuba 
in 1962.
    Other countries, however, have or are developing ICBMs that can 
reach the United States. China, for example, has a small ICBM force 
that it is modernizing. Other states like Iran and North Korea also are 
intent on acquiring ICBMs.

    Mr. Chairman, I know my time has expired, and I do have 
other things which I am going to submit for the record, because 
I will be presiding probably for the last time for a few 
months, and I do not want to miss that opportunity.
    Chairman Warner. I thank the Senator from Oklahoma.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I want to go back, Dr. Crouch, to the Korean issue. You 
have been asked about your statement that the Bush 
administration's decision to withdraw tactical nuclear weapons 
was a major geopolitical mistake, and in that same article you 
recommended U.S. redeployment of nuclear weapons to South 
Korea. The tensions were high when you made those 
recommendations. The South Korean Government did not support 
the redeployment of nuclear weapons to the peninsula, did it?
    Dr. Crouch. I do not know that the South Korean Government 
was ever asked about that question.
    Senator Levin. Was it not their goal to denuclearize the 
peninsula?
    Dr. Crouch. I am certain that was the South Korean goal. I 
think that was also the U.S. goal.
    Senator Levin. Are you saying that you recommended that we 
redeploy nuclear weapons to North Korea without knowing their 
position?
    Dr. Crouch. No, I was trying to answer, Senator, your 
question, which I thought was, what was the position on the 
reintroduction of South Korean nuclear weapons. I do not 
believe the question was--at least, I am unaware. I was out of 
Government at the time. I am unaware of the position that the 
South Korean Government had on that, if they were even asked. I 
suspect they were not, so they may not have had to formulate a 
position.
    Senator Levin. Do you think it is relevant as to what their 
position was at the time as to whether we reintroduce nuclear 
weapons?
    Dr. Crouch. Absolutely. In fact, I think, obviously that 
either the introduction or reintroduction of nuclear weapons on 
an ally's soil is something that would have to be determined 
based on mutual agreement between the parties.
    Senator Levin. But when you made the recommendation that we 
reintroduce it, are you saying that you made that 
recommendation without even knowing what the position of South 
Korea was?
    Dr. Crouch. No. My recommendation, I believe, would have 
been, if, in fact, that recommendation had been taken up, that 
we would have sought that agreement from the South Korean 
Government.
    Senator Levin. Is that what was in your article, that we 
seek agreement from South Korea?
    Dr. Crouch. I do not have a copy of the article in front of 
me, sir.
    Senator Levin. Did you support the Framework Agreement?
    Dr. Crouch. My view on the Framework Agreement----
    Senator Levin. No, not now. Did you support the Framework 
Agreement when it was entered into?
    Dr. Crouch. No.
    Senator Levin. Your language was that the United States 
was--and this is an article you wrote in 1995, after the 
Framework Agreement--excuse me. This was after the Framework 
Agreement was signed in October 1994. You wrote that the United 
States was seeking to collude with the North Koreans. Did the 
U.S. Government collude with the North Koreans?
    Dr. Crouch. I believe that the U.S. position was not the 
right position to take. I mean, I think that the----
    Senator Levin. I am not arguing that. I am just talking 
about the use of the word collude. You wrote that the U.S. 
Government was seeking to collude with the North Koreans.
    Dr. Crouch. Right. I think the point in the article was 
simply that--and my criticism of the administration was simply 
that the administration was not taking this particular threat 
as seriously as it should have. I guess my rhetorical way of 
stating that was that they were in fact colluding with the 
North Koreans.
    Senator Levin. You also wrote that, again, this was in 
1995, after the Agreed Framework was entered into in October 
1994, that absent positive viable steps by the North Korean 
regime towards the destruction of their nuclear complex, that 
you would authorize the destruction, bombing of that complex.
    Now, they are in the middle of a very tense situation on 
that Korean peninsula, and you are urging us to bomb North 
Korea if they do not comply with our demands. What was South 
Korea's view about that?
    Dr. Crouch. Again, I was not inside the Government. I do 
not know specifically what South Korea's view was. I know that 
the president at the time, the president of South Korea at the 
time considered it, and stated publicly so, that the 
development of weapons of mass destruction and the targeting of 
those weapons on South Korea was not something that the 
Government of South Korea would tolerate, but beyond that, it 
is very difficult for me to state what the internal views of 
the Government of South Korea----
    Senator Levin. Or stated views, relative to bombing North 
Korea if they did not comply. This was after the Framework 
Agreement was entered into. You wrote in January 1995, 3 months 
after the Framework Agreement is entered into, that we ought to 
bomb them if they do not comply with our demands, and in a 
tense situation. Not knowing what the Government of South Korea 
even favors, you recommend bombing. It is such a reckless 
comment.
    Dr. Crouch. Senator, I think that if I may say a few things 
on that, I do not believe that--number 1, if you will look at 
the record, the article was actually written in 1994. 
Unfortunately, I am in a position where yes, it was published 
in 1995. That is the way academic journals--there is usually a 
3- to 6-month delay in these things.
    Senator Levin. Did you ask them to hold off publication?
    Dr. Crouch. No, I did not. No, I did not, obviously, all 
right, but I want you to understand that the recommendations 
were made in that context, and so--but more to the point, I 
think that the concern that was evinced within that Government 
by, I believe, Members of the Senate at the time, and certainly 
even by Secretary Perry, who I believe testified before the 
Senate Foreign Relations Committee that he was considering 
options to do just this, is evidence of the serious nature of 
this.
    I am not suggesting that it was an easy decision, and it 
may well have been that if different facts had come to light 
that I was not aware of because I was out of Government, I may 
have made a different decision, but given what I knew at the 
time, I stick by the recommendations.
    Senator Levin. All right, but then you are saying that 
Secretary Perry made the same suggestion that you were making 
in this article?
    Dr. Crouch. No. What I said was that I believe that 
Secretary Perry testified in front of the Senate Foreign 
Relations Committee that he had considered and in fact had 
ordered that options for doing just that be drawn up.
    Senator Levin. Just that.
    Dr. Crouch. But--well, not specifically that. The ``just 
that'' is attacking, the bombing, if you will, of North Korean 
nuclear weapons and missile complexes.
    Senator Levin. Under what circumstances?
    Dr. Crouch. But he decided against that.
    Senator Levin. All right. You are not suggesting that he 
and you had the same position?
    Dr. Crouch. No, but I am trying to suggest that the 
position of considering doing that was not a reckless position.
    Senator Levin. You wanted to authorize it. That was your 
word, right?
    Dr. Crouch. Absent getting an agreement from the North 
Koreans----
    Senator Levin. Which you opposed.
    Dr. Crouch. No. The kind of agreement that I would have 
sought--and I think one of the problems we have today with the 
Framework Agreement is that we are not getting the kind of 
transparency that is necessary to feel confident that the North 
Koreans are no longer developing weapons of mass destruction, 
in particular, nuclear weapons.
    Senator Levin. Do you think we should continue to support 
the Framework Agreement now?
    Dr. Crouch. I know that the Framework Agreement is 
something that is, along with our entire relationship with 
North Korea, something that is currently under review by the 
administration. One of the things that--and principally this 
will--I will be involved in this, if confirmed, but I think it 
would be best if I were to know what the other considerations 
are, be involved in those deliberations, before making a 
determination on that. Ultimately the President, I believe, 
will make that decision, and I can certainly support whatever 
decision the President makes.
    Senator Levin. Well, the decision has already been made. 
According to the letter that Deputy Secretary Armitage took to 
South Korea, we expect that among the things that our policy 
review would show would be that we would continue to support 
the Agreed Framework, so it has already been made, but you are 
still uncertain as to whether you support the extension of it.
    Dr. Crouch. Well, my reading--I have not seen that letter. 
I have not been privy to it.
    Senator Levin. Perhaps you could for the record, then, take 
a look at the letter and give us your answer.
    Dr. Crouch. I would be happy to do that, Senator.
    [The information referred to follows:]

    I support the administration's position on abiding by the Agreed 
Framework. The administration has decided to undertake discussions with 
North Korea on a broad agenda that includes improved implementation of 
the Agreed Framework. I believe that the international situation has 
changed greatly since 1994 when I first wrote about the Agreed 
Framework. The June 2000 inter-Korean summit is one example of this 
change. In coordination with our Asian allies, the administration will 
hold discussions with North Korea aimed at reaching verifiable 
arrangements that enhance our national security and that of our allies.

    Senator Levin. I think my time has probably long gone.
    Chairman Warner. Take another minute. Well, I will take a 
few points. I just want to follow on. I have had the privilege 
of working with Dr. Perry when he was in positions in the 
Department of Defense, particularly that of Secretary. I have a 
very high personal regard for him, and he, as you recall, 
Senator Levin, in the course of his trips to both Koreas would 
come and offer himself to consult with the Members of the 
Senate Armed Services Committee. I think he provided some very 
useful breakthroughs.
    I am not going to get into specifics, but I am also an 
adherent of the doctrine, the more openness that we try to 
share with a nation that is so isolated as North Korea is to 
the overall advantage to the United States, so I am hopeful 
that the Bush administration will continue to pursue such 
opportunity as we may have to alleviate the stresses between 
the North and the South and, indeed, the isolation of that 
country. Their people are suffering tragically in North Korea 
now.
    I want to shift to the subject of our relationship with 
Taiwan and that of the People's Republic of China. I will just 
make an observation of my own. I have followed this for many 
years here in the Senate. I strongly support and adhere to the 
law of the land whereby we have indicated that in certain 
circumstances we would first see that Taiwan is adequately 
armed to defend itself, and if necessary we would engage our 
forces if the President of the United States at that time felt 
that that obligation was in fulfillment of the law of the land.
    On the other hand, I feel very strongly that implicit in 
the law of the land, our land, the United States, with regard 
to the relationship with Taiwan, implicit therein is the 
obligation of the Taiwanese elected persons and others who are 
in official positions to restrain their rhetoric and their 
actions so as to not incite additional stresses between Taiwan 
and the People's Republic of China. I think that is very 
important, and I always lay down that cautionary note, and I 
just wondered if you share a similar view with that of the 
chair.
    Mr. Feith?
    Mr. Feith. Yes, Mr. Chairman. I think that working the 
relationship with Taiwan so that we provide the support that we 
should, and help keep the situation there secure, and at the 
same time work on cooperating with them to make sure that 
Taiwan's own position does not become a destabilizing element 
in the area is--I think both of those points are worth 
stressing.
    Chairman Warner. Thank you. Do either of you wish to 
comment on that?
    Mr. Rodman. I agree with that. I think the United States is 
not looking for a crisis with China over Taiwan, and the Taiwan 
Relations Act reflects the American commitment, but I think our 
objective is to deter a crisis, and the way you expressed it I 
think is the right approach.
    Chairman Warner. Thank you.
    Dr. Crouch.
    Dr. Crouch. I agree. I think the President's position on 
this has been that he is going to speak clearly on the subject 
so that both parties, the PRC in particular, knows about our 
commitment, but on the other hand I think it would be wrong to 
try to artificially solve that problem or to create stresses 
between those two States.
    Chairman Warner. Turning to the subject of Iraq, the 
administration is actively trying to reengage our allies. Great 
Britain has loyally stood by our side. It has certain 
initiatives in the United Nations, and before the Security 
Council, which I commend Great Britain for taking.
    At the same time, we have a daily responsibility to enforce 
the no-fly zones, and the risk to aviators, be they U.S. or 
British or, should others fly of our allies, is increasingly 
risky to them, and we must take cognizance of this. I am 
confident that Secretary Rumsfeld in his most recent visit 
through the region has enunciated our adherence to protecting 
the concept of the no-fly zone, and doing everything we can, 
the United States, to enforce the sanctions which prohibit the 
importation into Iraq of raw materials and/or technology, or to 
add to the weapons of mass destruction, which I am sure Saddam 
Hussein daily tries to create in his own country. This is a 
keen balance that we have to recognize today with the clear 
indication that Saddam Hussein is stepping up the activity 
against the aviators. I just wondered if, Mr. Feith, you agree 
with my views on this.
    Mr. Feith. Yes, I do, Mr. Chairman. I believe it was 
yesterday Secretary Rumsfeld visited the Incirlik Air Base in 
Turkey, and made points very much in line with those you just 
expressed.
    Chairman Warner. I see Turkey is continuing to give its 
support to the missions, and I think that is important.
    India and Pakistan, countries which we have had a long and 
valued relationship with both nations, they are a tinder box, 
regrettably, because of their ability to have some capabilities 
with nuclear weapons. I think it is important that we maintain 
engagement with both nations, and do what we can on matters of 
counterterrorism, peacekeeping, regional security, and the 
like. Do you agree with my views on that, Mr. Feith?
    Mr. Feith. Mr. Chairman, South Asia is rapidly growing in 
strategic importance and U.S. relations with the States there 
are going to be an important part of shaping the strategic 
environment for the 21st century. It is going to influence our 
relations with Russia and China. Our relations with India and 
Pakistan help contain the danger of conflict between them, 
which is especially important, given the nuclear capabilities 
and missile capabilities of each of the States.
    I would say simply that, if confirmed, I would enter into 
the review that I know is underway of our policies towards 
South Asia, and would be looking forward to working with the 
committee on how we could best weave together our security and 
economic and political interests in both of those important 
countries.
    Chairman Warner. Do either of you wish to add to that?
    Dr. Crouch. I agree with that.
    Chairman Warner. Thank you. The subject of persons who are 
missing in action, commonly referred to as the POW/MIA issue, 
is one that I feel very strongly about that our country should 
at no turn in its relationships, particularly with Vietnam and, 
indeed, Korea--I had a brief tour of service with the Marines 
there in 1951-1952, and I have friends who are unaccountable to 
this day. I think there are several thousand in the Korean 
conflict, and an equal number, if not greater, in Vietnam. Do I 
have the assurance of all of you, as you pursue your official 
duties, if confirmed, that you will in every way assist in 
terms of our official efforts, as well as the efforts of other 
recognized and responsible organizations, to solve the 
mysteries and the family stress associated with POW/MIA?
    Mr. Feith. Yes, sir.
    Dr. Crouch. Absolutely, sir.
    Mr. Rodman. Absolutely.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you. The chairman asked about 
amendments--I think it was the chairman. It may have been 
Senator Inhofe--asked about the amendments to the ABM Treaty 
which had been offered, or were talked about as possibly being 
offered to Russia by President Bush, and I think you all 
indicated that you do not know of any amendments--maybe Mr. 
Feith, you said you do not know of any amendments that have 
been proposed, is that correct?
    Mr. Feith. That is correct.
    Senator Levin. Is it your understanding that amendments to 
the ABM Treaty will be proposed by the Bush administration to 
Russia?
    Mr. Feith. What I understand, Senator, is that the 
President has said that he wants to create a new framework for 
the relationship between the United States and Russia, and it 
is my understanding that the administration right now is in 
consultations with the allies and with the Russians and I am 
confident with Congress, is working on refining the idea of 
framework. The President said in his National Defense 
University speech that he is looking at a wide range of ideas 
for that framework, and whether amendments of the type that you 
are referring to are going to be part of it or not I am sure 
will be part of the consideration.
    Senator Levin. At The Citadel in 1999 he said that we will 
offer Russia the necessary amendments to the ABM Treaty. Do you 
remember that?
    Mr. Feith. I had not remembered that.
    Senator Levin. All right. He did say that. Now, whether he 
does that or not, you do acknowledge that either he is going to 
be offering a totally new framework to substitute for the ABM 
Treaty, or amendments to the ABM Treaty. Is that a fair 
statement of what your understanding is of the Bush 
administration?
    Mr. Feith. My understanding is that he is considering all 
sensible options for a framework.
    Senator Levin. Which may include----
    Mr. Feith. Which may include that, which may include lots 
of other ideas.
    Senator Levin. OK. Dr. Crouch, on the question of economic 
sanctions, in the article which has been referred to where you 
were critical of the Framework Agreement and made the other 
statements which have been quoted, you said the following, that 
the administration is predictably turning to that great panacea 
of western inaction, economic sanctions. When you were asked 
about it earlier this morning you sounded very different from 
that, I must tell you. You said, sanctions have an important 
role. I did not catch any of that in this article, the 
important role of economic sanctions. They were just labeled a 
great panacea. Have you changed your mind since you wrote that?
    Dr. Crouch. No, Senator.
    Senator Levin. So they still are a great panacea, or ``that 
great panacea?'' Is that still a fair summary of where you 
stand in terms of economic sanctions?
    Dr. Crouch. I think they can be a panacea, yes.
    Senator Levin. I would agree with that, but you labeled 
economic sanctions as a whole, as a group, generically, as 
``that great panacea of western inaction.'' Is that a fair 
characterization of your view of sanctions generically now, at 
this point, that they represent a great panacea of western 
inaction?
    Dr. Crouch. The point I was trying to make in the article, 
Senator, is that they have been, or have operated as a panacea 
of western inaction in the past, and I suppose that this was my 
rhetorical way of describing it, and I stick by that statement.
    What I wanted to be clear on, however, was that I am not 
suggesting that economic sanctions have no value, nor am I 
suggesting that in combination with other actions they may not 
be able to be part of a comprehensive policy in dealing with 
problems like the one I discussed in the article.
    Senator Levin. Are there any current sanctions that you 
would repeal?
    Dr. Crouch. I cannot think of any, no.
    Senator Levin. On the nuclear testing issue, you talked 
about those who supported a testing as using Luddite logic, and 
when asked whether or not President Bush's decision to continue 
the moratorium that exists now on testing represented Luddite 
logic, you did not give an answer. You sort of laughed. Does it 
represent Luddite logic?
    Dr. Crouch. I thought I said no.
    Senator Levin. Why does it not, given your views back in 
this article?
    Dr. Crouch. As I stated in the article, I believe, my view 
on nuclear testing is that it formed an essential component to 
us being able to understand nuclear weapons technology, that as 
long as the United States continues to rely on that technology 
as a principal basis for its defense, that we need to 
understand as much as possible about it, and so I think that 
that is about as clear as I can get on it.
    Senator Levin. Are you recommending we resume testing?
    Dr. Crouch. I am not recommending anything at this point, 
Senator.
    Senator Levin. Why?
    Dr. Crouch. Pardon me?
    Senator Levin. Why do you not recommend it? For the reasons 
you just gave, why should we not resume testing?
    Dr. Crouch. Well, I think that whether we resume testing, 
particularly given the fact that the CTBT is a negotiated 
treaty, given--this is an issue that has to be looked at in the 
context of our entire international commitments, has to be 
looked at in terms of what requirements we may have in the 
future for nuclear testing, and I think it is an issue that the 
administration is going to be looking at very hard in its 
strategic review.
    Senator Levin. I do not understand how you label it Luddite 
logic to stop testing, but not now say that you recommend we 
resume it. I do not get it.
    Dr. Crouch. The reason I labeled it that is that I think 
that, why should we not have as much information as possible?
    Senator Levin. Then why should we not resume testing?
    Dr. Crouch. I did not say that we should not resume 
testing.
    Senator Levin. Should we resume testing? You do not say we 
should, and I am asking it the other way, why should we not 
resume testing, given your position?
    Dr. Crouch. Well, I think that considering the resumption 
of testing is something that the administration ought to 
consider.
    Senator Levin. My time is up. Thank you.
    Chairman Warner. I would like to follow up on that. This 
stockpile program, which is the substitute for testing, was 
very carefully evaluated by this committee in the context of 
the review of the Comprehensive Test Ban Treaty and the Senate 
rejected that.
    Now, until such time as there is greater clarity to the 
success of that program, and in the judgment of this Senator 
that clarity has not been brought forth by the technical people 
as yet, we should not foreclose any options, because we have a 
convergence of the aging of the nuclear stockpile. I am 
repeating myself, but the safety of those in our armed forces 
and civilians who must deal with these weapons, the proximity 
of these weapons, which are aging, to communities in the United 
States and other places in the world, we have to keep open the 
option of some alternative program to get the safety issue and 
the credibility of our deterrence clearly established. Because 
as time goes on I think the Nations of the world could attach 
some lack of faith in our stockpile of weapons unless we have 
some clear documentation that these weapons, no matter how 
awesome they maybe, no matter how much I and others hope they 
will never be used, but nevertheless they have to be maintained 
safely, and they have to provide a credible deterrent.
    So in my view, the question of testing is an open one, and 
it is dependent on the success or the failure of this stockpile 
program that is underway at the cost of an enormous amount of 
money, which is basically a computer program, and we have to be 
aware of what other nations may be doing with respect to their 
testing procedures.
    I certainly am not in a position to say unequivocally that 
Russia--we accept their representations, but documentation as 
to whether to not they are or they are not doing any testing is 
an open question in my mind.
    I just have one more question on Latin America. It is very 
important to this hemisphere. I think we must be ever cognizant 
of the importance of the relationships between this nation and 
those in Central and Latin America, and there is considerable 
instability in a number of the Nations. I just wish to have 
your commitment that that is a priority that you will address 
from time to time. Mr Rodman.
    Mr. Rodman. Yes. It is an area that the President is giving 
priority attention to, and if I am confirmed, it is an area 
that I will give the same attention to.
    Chairman Warner. Good. Any others wish to comment on that?
    Mr. Feith. Mr. Chairman, I agree with that.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Dr. Crouch, on missile defense I just want to ask you a few 
questions. One of the chief U.S. objectives in START II is to 
eliminate Russia's S-18 missiles and all of its MIRV'd ICBMs. 
Do you believe it is in our interest for Russia to eliminate 
all of its MIRV'd ICBMs?
    Dr. Crouch. Yes, I do, sir.
    Senator Levin. If we determined that unilaterally deploying 
a national missile defense, assuming we tried some new 
framework and it failed to be achieved, or we tried to modify 
by amendment the ABM Treaty, and we failed, if we determined 
that unilaterally then deploying a national missile defense 
would result in Russia keeping their MIRV'd ICBMs, would that 
fact be worthy of consideration by us relative to the question 
of whether we would be more or less secure with a unilateral 
deployment?
    Dr. Crouch. I certainly think it would be worthy of 
consideration.
    Senator Levin. All right. Is it in our national interest 
for Russia to cooperate with us on nuclear nonproliferation?
    Dr. Crouch. Yes.
    Senator Levin. The same question. If we assess that there 
would be proliferation dangers by a unilateral deployment of a 
national missile defense, would that make it worthy of 
consideration, the question of whether or not to deploy, if it 
led to that? Is it just worthy of consideration? I am not 
asking you to reverse your position on national missile 
defense. I just want to know whether or not you think it is 
worthy of consideration.
    Dr. Crouch. I absolutely think it is worthy of 
consideration.
    Senator Levin. All right. Is it in our interests that 
Russia not provide advance missile defense countermeasures to 
other nations?
    Dr. Crouch. Certainly.
    Senator Levin. If we determined that a unilateral 
deployment of a national missile defense would result in Russia 
transferring advanced countermeasures technology to other 
countries, would that be worthy of consideration on the 
question of whether to unilaterally deploy a national missile 
defense?
    Dr. Crouch. Yes.
    Senator Levin. Is it in our interest that Russia and China 
not join together to oppose U.S. interests generally?
    Dr. Crouch. Generally, yes.
    Senator Levin. If we assess that deploying a national 
missile defense unilaterally would result in Russia and China 
joining together to oppose U.S. interests, or make it more 
likely that they would join together to oppose our interests, 
would that be worthy of consideration on the issue of whether 
or not to deploy unilaterally a national missile defense?
    Dr. Crouch. I think all of those issues are worthy of 
consideration.
    Senator Levin. I will just give you another, then. You can 
add any additional considerations for the record. Is it in our 
national interest that China not expand its nuclear forces 
beyond a reasonable deterrent level from their perspective?
    Dr. Crouch. Yes. I think it is in their interests, too.
    Senator Levin. If we assess that deploying a national 
missile defense in the way that I just previously described 
would result in China expanding its nuclear forces further than 
they otherwise would, would that be a consideration, do you 
believe, that ought to be taken into account on the decision 
whether or not to deploy a national missile defense?
    Dr. Crouch. Yes.
    Senator Levin. One last question now, and the other ones I 
will save for the record. Actually, there are two more 
questions, and the others will be saved for the record. This 
goes to Mr. Rodman.
    In your article in the Los Angeles Times on May 7, 1999, 
you wrote that NATO's original demands for a reversal of ethnic 
cleansing, withdrawal of the Yugoslav army and police from 
Kosovo, and a NATO military protectorate to speed the return of 
refugees, is a key benchmark by which to judge any negotiated 
outcome, and then you wrote, the outcome is likely to be a 
diplomatic compromise superficially confusing enough to allow 
some in the West to claim success. What is your view now as to 
the success of the diplomatic and military outcome in Kosovo?
    Mr. Rodman. I was wrong, Senator. I predicted that it would 
not--that the bombing campaign would end inconclusively, and I 
was, I say, pleasantly surprised by the outcome.
    Senator Levin. Then one question on the Sinai peacekeeping. 
If confirmed as Assistant Secretary, you are going to be 
responsible, I believe, for advising the Secretary of Defense 
on U.S. policy in the Middle East. Do you believe that the 
Middle East should withdraw its forces from participation in 
the Sinai peacekeeping force?
    Mr. Rodman. I know that Secretary Rumsfeld has expressed a 
general interest in reviewing the kind of commitments we have 
in many parts of the world, and I would not want to prejudge 
the outcome of a review because I do not think he is prejudging 
the outcome.
    I regard the Sinai agreement, the peace treaty between 
Egypt and Israel, as one of the most important achievements of 
the peace diplomacy. I realize the great role that the MFO has 
fulfilled, but I have to say that I think the Secretary is 
right to look at these and just to see if they are still 
essential. I certainly agree that the peace agreement and 
maintaining stability in the Sinai are definitely essential.
    Senator Levin. Do you have an opinion as to whether we 
should withdraw those forces?
    Mr. Rodman. I do not know enough about it. I do not know 
whether there are other options that might be available.
    Senator Levin. Thank you.
    Mr. Chairman, I and a number of my colleagues have some 
questions for the record. I would ask that it be kept open for 
24 or 48 hours so that we can get those questions in. There 
have been a number of things requested of our nominees, 
including the paper that was written for the American 
Enterprise Institute, and so I would ask that the record be 
kept open for a reasonable length of time so that we can get 
the answers to those questions.
    Chairman Warner. Senator Levin, I assure you we will do 
that. I will do the appropriate thing to consult with you as to 
when both sides of the aisle here have had the full opportunity 
to submit and get the responses. Of course, we are anxious--you 
have been a tremendous team player in getting the nominations 
of the Secretary of Defense to the floor expeditiously, and I 
expect we will do the same in this case, but there are a number 
of questions, and we should get those answered for the record.
    This has been an excellent hearing. It may well be my last 
for an indefinite time as the chairman, but I think we have 
very thoroughly and fairly and objectively looked into all 
issues that relate to the Senate's very important 
responsibility of advice and consent. I am optimistic that each 
of you will receive the advice and consent of the Senate, but 
that remains to be seen. Certainly your responses to this 
Senator confirm the wisdom of the Secretary of Defense and the 
President in selecting you.
    In closing, I say to my good friend, Senator Levin, we came 
to the Senate some 23 years ago. We have worked together these 
many years. We will continue to work together, and throughout 
my period of 2 years plus as chairman, Senator Levin, you have 
accorded me every courtesy and plus some, and I intend to do 
the same whenever the time occurs for the passing of the 
mantle, this one, which will be, I presume, in the next 48 
hours or so. I wish you luck.
    Senator Levin. Mr. Chairman, let me just say that you have 
always been, as long as I have known you, a fair person. We 
have always operated in a bipartisan manner. You as chairman 
have carried out a great tradition of bipartisanship on this 
committee. One never knows what the future holds. We have 
learned that many times in politics, so you cannot predict how 
long anybody will be here, much less how long anybody will be 
chairman.
    Chairman Warner. That is true.
    Senator Levin. I just want to thank you for your continuing 
stretching out your hand to this side of the aisle. We will do 
the same when the gavel passes. I again just want to thank you 
and assure you that I will be just as bipartisan, and try even 
to somehow or other be more so, even though that may not be 
possible, than you have been. You have been a wonderful role 
model for anyone who aspires to be chairman of this committee.
    Chairman Warner. I thank you. I accept that with great 
humility, and I extend the hand. Good luck. Thank you very 
much.
    The hearing is concluded, we are adjourned.
    [Whereupon, at 1:40 p.m. the committee adjourned.]

    [Prepared questions submitted to Douglas Jay Feith by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                       May 18, 2001
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Yours Truly,
                                  Douglas J. Feith.
cc: Hon. Carl Levin,
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. The 
focus on ``jointness'' outlined in the Defense Reorganization Act of 
1986 has significantly enhanced the readiness and warfighting 
capabilities of the U.S. armed forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening civilian control of DOD, 
improving military advice given to the President and Secretary of 
Defense, and advancing the ability of the Department to carry out its 
fundamental mission--protecting America's security and furthering its 
vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects are the 
clear responsibility and authority given the CINCs for mission 
accomplishment, and the increased attention to formulation of strategy 
and contingency planning.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am unaware of any major changes that are needed to 
Goldwater-Nichols. Before any modifications are suggested, the 
Department should consult closely with Congress, especially this 
committee.
                                 duties
    Question. Section 134 of Title 10, United States Code, provides 
that the Under Secretary of Defense for Policy shall assist the 
Secretary of Defense in preparing written policy guidance for the 
preparation and review of contingency plans and in reviewing such 
plans.
    Additionally, subject to the authority, direction and control of 
the Secretary of Defense, the Under Secretary shall have responsibility 
for supervising and directing activities of the Department of Defense 
relating to export controls.
    Department of Defense Directive 5111.1 reiterates these duties and 
specifically notes that the Under Secretary of Defense for Policy is 
the principal staff assistant and advisor to the Secretary of Defense 
and the Deputy Secretary of Defense for all matters on the formulation 
of national security and defense policy and the integration and 
oversight of DOD policy and plans to achieve national security 
objectives.
    What is your understanding of the duties and functions of the Under 
Secretary of Defense for Policy under current regulations and 
practices?
    Answer. If confirmed, I will perform the duties provided by statute 
and regulation, as set forth in the Directive. The Under Secretary of 
Defense for Policy serves as the principal assistant and advisor to the 
Secretary and Deputy Secretary of Defense for all matters concerning 
the formulation of national security and defense policy and the 
integration and oversight of DOD policy and plans to achieve national 
security objectives.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld would prescribe for you?
    Answer. I would expect Secretary Rumsfeld to look to the Under 
Secretary of Defense for Policy to fulfill all the duties assigned to 
that office by statute and regulation--in particular, assistance and 
advice on the formulation of national security and defense policy. This 
would likely include: oversight of DOD policy and plans; DOD relations 
with foreign governments and international organizations; and DOD 
participation in the interagency process of the U.S. government.
    Question. How do you see the civilian role, as opposed to the 
military role, in the formulation of strategy and contingency planning?
    Answer. As I understand this activity from the briefings I have 
received, the Under Secretary of Defense for Policy office, on behalf 
of the Secretary, initiates the contingency planning process though its 
preparation of the Presidentially-approved Contingency Planning 
Guidance. The Under Secretary of Defense for Policy staff follows the 
development of actual plans which are developed by the military over 
the 18-24 month deliberate planning cycle and then conducts a formal 
review of the final products. Final plans as well as preliminary 
strategic concepts are briefed to the Under Secretary of Defense for 
Policy for approval, and a number of key plans and strategic concepts 
are brought to the Secretary for his approval.
                          contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
attention on the formulation of strategy and contingency planning. The 
Under Secretary of Defense for Policy is specifically directed to 
assist the Secretary of Defense in preparing written policy guidance 
for the preparation and review of contingency plans and in reviewing 
such plans.
    In your opinion, does the civilian leadership currently have an 
appropriate level of oversight of contingency planning?
    Answer. I am not able to judge at this time, but I am told that 
civilian oversight of the contingency planning process is at its most 
mature state since enactment of Goldwater-Nichols. I have been told 
that the Office of the Under Secretary of Defense for Policy has good 
relations with the Joint Staff and CINCs' planning staffs that 
facilitate oversight.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of contingency planning?
    Answer. If confirmed, I will be able to gain a more detailed 
understanding of OSD's oversight processes and how it might be 
improved.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the Under Secretary of Defense for Policy?
    Answer. The Under Secretary of Defense for Policy must strive to 
ensure that the U.S. military maintains the ability to deter the range 
of threats we face and defend our national interests in a world of 
diverse and not necessarily predictable threats. We face major 
challenges in properly supporting our forces today while transforming 
the military to deal effectively with future uncertainties. Another 
major challenge is dealing with so-called emerging threats--the ability 
of hostile forces (states and terrorist organizations) to cause serious 
damage on U.S. territory even though they cannot defeat our armed 
forces. This field of emerging threats deserves the most serious 
attention of defense policy makers.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work to ensure that we have a defense 
strategy and appropriate policies and plans to address the threats we 
face and capitalize on U.S. strengths.
                  european security and defense policy
    Question. A major challenge facing the United States and NATO in 
the months and years ahead will be the European Union's (EU) 
implementation of its European Security and Defense Policy (ESDP), that 
is, an EU capability to conduct military operations in response to 
international crises in cases where ``NATO as a whole is not engaged.'' 
Many in Congress have expressed concern that ESDP could emerge as a 
competitor, rather than a complement, to the NATO Alliance.
    Do you share these concerns? What steps do you believe that the 
United States and NATO must take to ensure that ESDP is implemented in 
a way that strengthens the Alliance?
    Answer. The United States and our NATO Allies must ensure that ESDP 
preserves NATO's integrity as the primary instrument of transatlantic 
security and does not diminish the Alliance's military operational 
effectiveness. ESDP could increase European military capabilities, 
complementing and reinforcing NATO to balance better the transatlantic 
relationship; however, with historically low levels in Europe of 
investment and public interest in security, ESDP could also pose a 
resource diversion risk and undermine NATO's ability to undertake 
effective collective defense.
                              iraq policy
    Question. The administration is currently conducting a 
comprehensive review of U.S. policy toward Iraq. Secretary of State 
Powell recently raised the possibility of changing the sanctions regime 
against Iraq to ease economic sanctions in return for strengthening the 
implementation of sanctions on military-related items.
    What elements do you think should be part of the administration's 
policy to ensure Iraqi compliance with the obligations Iraq accepted at 
the end of the Gulf war?
    Answer. U.S. policy toward Iraq aims to ensure that the Baghdad 
regime does not threaten U.S. interests in the Gulf region or the 
Middle East as a whole. That objective is consistent with the aims of 
the Gulf War cease-fire resolution and the other UN Security Council 
resolutions dating back to the initial invasion of Kuwait-all of which 
are intended to ensure that Iraq can no longer be a threat to peace and 
security.
    I am advised that the ongoing administration review of Iraq policy 
focuses on three main elements: (1) refocusing sanctions to target 
Iraqi military and WMD capabilities; (2) using the military more 
effectively to support our policy objectives, including enforcing the 
no-fly zones; and (3) promoting conditions in which the Iraqi people 
might be able to free themselves of Saddam's tyrannical regime. These 
elements are linked to each other and our challenge is to bring all 
three together while addressing the complex task of rebuilding 
consensus in the region and in the international community.
                           engagement policy
    Question. President Bush has directed the comprehensive review of 
all U.S. military deployments abroad. In his September 1999 speech at 
the Citadel when he announced his intention to have such a review, 
then-Governor Bush spoke of problems with ``open-ended deployments and 
unclear military missions.''
    What do you believe are the proper criteria to apply when deciding 
whether or not to involve the U.S. Armed Forces in military operations 
overseas?
    Answer. The decision to employ U.S. military forces in support of 
our national interests is one of the most important that a President 
has made. Each case is unique. The assessments on the use of force 
should consider what interests are at stake, whether the goals we seek 
are achievable, and at what cost and how we would characterize success. 
It is important that the mission be defined so that we know when it is 
over and when we can bring our forces home.
    Question. If confirmed, would you support continued engagement 
activities of the U.S. military?
    Answer. Engagement activities, if conducted wisely and at 
appropriate levels of effort, can serve useful purposes including: 
strengthening alliances; deterring threats; and enhancing U.S. military 
access in key regions. I support such U.S. military activities for 
these useful purposes. If confirmed, I will assist in reviewing 
engagement activities to ensure that they support our goals.
    Question. Do you believe that these activities contribute to U.S. 
national security?
    Answer. These activities can serve the national interest, 
demonstrating U.S. commitment, deterring aggression and adventurism, 
and helping ensure a rapid and decisive response in the event of 
crisis.
    Question. Would you assure the committee that there would be 
adequate civilian oversight of these activities?
    Answer. If confirmed, I assure the committee that there will be 
adequate civilian oversight of engagement activities.
                       involvement in the balkans
    Question. Since the United States first deployed ground troops to 
Bosnia in December 1995, there have been dramatic changes in the 
Balkans. Although ethnic tensions remain high throughout the region and 
ethnic conflict has flared in the Former Yugoslav Republic of Macedonia 
(FYROM), the major source of instability in the Balkans, Slobodan 
Milosevic, is out of power and under arrest in Serbia, and a new, 
democratically elected government is now in charge in the Federal 
Republic of Yugoslavia.
    Given recent changes, should the United States and the 
international community re-evaluate its policies in the Balkans, to 
include a re-evaluation of the need for a large U.S. and NATO-led 
presence in the region?
    Answer. Military forces are being used to secure the environment in 
which civil implementation of the Dayton Accords and of other 
peacekeeping arrangements can take place. Decisions on the 
circumstances and timing of continued military presence will result 
from the regular alliance processes reviewing the missions. I 
understand that we have underway an assessment of the need for military 
forces in these missions, and we are committed to act as a member of 
the alliance in defining any reductions in our presence.
                        peacekeeping operations
    Question. What is your view as to the value of U.S. forces' 
participation in peace operations?
    Answer. U.S. forces' participation in peace operations can serve 
the national interest and strengthen military skills in several areas, 
such as operating in coalitions, providing logistics, communications, 
engineering and medical support, small unit leadership and civil 
affairs. Readiness benefits have to be balanced against the readiness 
detriment inherent in any use of military forces for operations other 
than war. Both of these factors are part of the broader national 
interest cost-benefit analysis required regarding peace operations.
                           asymmetric threats
    Question. What are the asymmetric threats you see to the United 
States and its interests, and what are the appropriate responses to 
these threats?
    Answer. Asymmetric threats to the United States include nuclear, 
biological and chemical (NBC) weapons and their means of delivery, 
terrorism, threats against our space and information systems, and a 
range of conventional capabilities intended to deny U.S. access to key 
regions in times of crisis. In light of these threats, President Bush 
has made the development and deployment of missile defenses a priority 
for his administration. Also, the Department is preparing U.S. forces 
to deter such threats and, if deterrence fails, to fight and win 
despite the threat or actual use of NBC weapons against them.
    As part of the administration's response to emerging threats to 
U.S. use of space, Secretary Rumsfeld announced several major 
organizational changes designed to improve the effectiveness of U.S. 
space capabilities.
    Countering anti-access and area-denial capabilities, such as 
submarines, anti-ship cruise missiles, advanced surface-to-air 
missiles, and advanced sea mines, requires ongoing investments to 
transform the weapons and the doctrine, organization, training, 
logistics, and procedures of our armed forces.
    Question. Do you think policies are required to address this 
emerging threat and growing biotech capability?
    Answer. Yes. Please see answer to 10A.
    Question. In your view, it is possible to develop and implement 
policies that will address this growing biotech capability?
    Answer. Yes. Please see answer to 10A.
                           counter-narcotics
    Question. In your view, what is the appropriate role of the 
Department of Defense in U.S. counter-drug efforts?
    Answer. As the President recently said, a successful counter-drug 
(CD) effort depends on a thoughtful and integrated approach. The 
Department's CD activities support a range of programs in the 
administration's overall National Drug Control Strategy. The Department 
is reviewing all its missions, including CD-related support to other 
Federal Agencies. I am ready, if confirmed, to oversee the support the 
President and the Secretary deem required to assist other agencies in 
their counter-drug efforts.
    Question. Do the Department's efforts contribute to the defense of 
our vital national interests?
    Answer. The Department's CD activities play a significant role in 
contributing to the administration's overall National Drug Control 
Strategy.
    Question. What role do you believe the United States should play in 
the implementation of Plan Colombia?
    Answer. The Department of Defense supports U.S. Government efforts 
to assist President Pastrana's Plan Colombia. The Department of State 
is the lead Federal Agency for coordinating these efforts. Both the 
President and the Secretary of State have made it clear that the new 
administration will support Plan Colombia by assisting the Colombians 
in their counternarcotics efforts. The Secretary of State and his team 
can best address in detail USG support to Plan Colombia.
                              north korea
    Question. Please outline your views with regards to the situation 
on the Korean Peninsula. In particular, discuss your thoughts on the 
implementation of the 1994 Agreed Framework and on the missile 
proliferation talks between the United States and North Korea.
    Answer. With regard to the Agreed Framework, I believe our goal 
must be a complete and verifiable end to the North Korean nuclear 
program. If there are ways to improve upon the Agreed Framework that 
enable us to have more confidence in achieving that goal, they should 
be considered. Regarding North Korean missiles, please see 12 B.
    Question. Do you believe U.S. policy should continue to seek an end 
to North Korean's nuclear weapons and ballistic missile programs?
    Answer. Yes. North Korea continues to pose a significant military 
threat to U.S. and South Korean forces. North Korea has been actively 
producing and exporting missiles and missile-related equipment and 
technology to other countries for more than a decade. These activities 
pose a threat to regional security and stability and to U.S. forces, 
allies, and friends.
    Question. Should these efforts include talks and negotiations with 
North Korea?
    Answer. North Korean activities and capabilities--regarding WMD and 
missiles, as well as conventional artillery--warrant intense attention. 
We must take the necessary steps to address these threats. I understand 
that the North Korea policy review, now underway, is considering 
various options. I look forward to becoming involved in this process if 
confirmed. If we engage in talks with the North Koreans, I believe we 
should do so with clearly defined objectives and a realistic assessment 
of our chances of achieving them.
                             africa policy
    Question. The Defense Department is currently involved in a number 
of initiatives in Africa to help certain nations be better prepared to 
provide their own regional peacekeeping forces and humanitarian 
missions. The African Crisis Response Initiative and the ongoing 
training of several Nigerian army battalions for peacekeeping duty in 
Sierra Leone are two examples of this policy.
    Do you support these initiatives?
    Answer. Yes. The United States has an interest in the development 
of a peace operations and humanitarian response capacity in Sub-Saharan 
Africa. We can promote this interest by developing defense partnerships 
with important states and sub-regional organizations. The concept is to 
help regional actors deal with regional problems. One such actor is 
Nigeria, with whom the United States is currently conducting peace 
operations training to support UNAMSIL in Sierra Leone (Operation FOCUS 
RELIEF, or OFR), training that also includes Senegal and Ghana.
                            missile defense
    Question. The President has made clear his commitment to the 
deployment of a limited missile defense system to protect the American 
people and our overseas interests and allies.
    In your view, to what extent should the United States utilize the 
ground-based architecture developed under the previous administration 
as a starting point for implementing the President's missile defense 
plans?
    Answer. The President has established missile defense as a top 
priority. Our policy is to deploy ballistic missile defenses based on 
the best available options, at the earliest possible date, that are 
capable of defending not only the United States but also friends and 
allies and U.S. forces overseas. Before it decides on deployment, I 
understand that the administration will examine all available options 
and basing modes that can contribute to defense.
    Question. Do you believe that system can meet the operational 
requirement for defending all 50 States against ballistic missile 
attack?
    Answer. The ground-based system advocated by the previous 
administration was being developed to meet the defined requirement of 
defending all 50 states. It would not have been capable, however, of 
defending allies and friends. Other system architectures could be more 
effective overall and capable of defending our allies, friends and 
forces abroad.
    Question. If that system can meet this operational requirement, 
what would be the rationale for expanding beyond the land-based system?
    Answer. That system was designed so its development (and even its 
deployment) could take place largely within the constraints of the ABM 
Treaty, which prohibited us from pursuing promising new technologies. 
It is not clear, therefore, that the system is based on the best 
available options. As noted above, that system would lack the 
robustness of a system that also included other types of defenses, and 
would not provide protection to allies and friends. I understand that 
the administration, before it decides on deployment, will examine all 
available options and basing modes that can contribute to defense 
including land-based options.
    Question. Is it your view that the administration is committed to 
deploy a national missile defense system without regard to the ABM 
Treaty and without regard to the views of our allies, Russia or China?
    Answer. The President has made clear that he is not interested in 
defenses that would separate us from our allies. The principle of 
shared risk is not in doubt or open to question. As demonstrated by the 
most recent round of consultations, the President and the Secretary of 
Defense are committed to substantive and meaningful dialogue with our 
allies.
    We have diplomatic challenges to work through regarding Russia and 
the ABM Treaty. The President has said we will address Russian concerns 
about the impact of defenses on their deterrent. We have had serious 
discussions with Chinese officials and listened to their views. Missile 
defense is not a threat to China--rather, it is intended to defend 
against the newly emerging ballistic missile threat resulting from 
proliferation and also against accidental and unauthorized launches.
    Question. What are the advantages of eliminating distinctions 
between ``national'' and ``theater'' missile defense systems?
    Answer. The President has said we will deploy defenses capable of 
defending the United States and our allies and friends. Whether a 
particular system is a ``national'' system or a ``theater'' system 
depends on where you live and how close you are to the threat. Some 
systems--boost-phase systems, for instance--may be effective against 
short-, medium-, and long-range ballistic missiles, whether they are 
directed at the United States or at allies in theater. These systems 
should be used where they are effective.
    Question. Does the administration intend to continue pursuing 
missile defense systems specifically for tactical or theater 
applications?
    Answer. Yes. U.S. and Allied forces already face threats from 
shorter-range ballistic missiles. It is important to pursue existing 
programs to address these threats.
    Question. To what extent do you believe that multi-layered missile 
defenses are necessary for dealing with the emerging ballistic missile 
threat?
    Answer. The administration has made clear that more work is needed 
to determine the final form defenses might take. In this process, it 
might draw on established technologies to intercept in boost-phase, 
mid-course, or after reentry vehicles enter the atmosphere. In 
principle, I believe a multi-layered defense is the most robust 
approach.
    Question. Will space-based defenses be needed in the future?
    Answer. As the President indicated in his May 1 speech, we have 
more work to do to determine the final form a missile defenses might 
take. The administration says it will continue to explore all options. 
I think it is well-advised to do so.
    Question. Does the administration intend to continue pursuing 
missile defenses specifically for applications against missiles with 
ranges from 300 to 3,500 kilometers?
    Answer. Yes. The United States and its allies will likely face 
threats from the full spectrum of ballistic missiles--short-, medium-, 
intermediate- and long-range. Therefore, the administration believes 
that it is imperative to continue programs designed to combat short-, 
medium-, and intermediate-range threats, as well as long-range threats.
    Question. Can the existing set of theater and national missile 
defense programs provide effective defenses against missile attack, as 
planned, or do you believe that space-based defenses will also be 
needed?
    Answer. As the President indicated in his May 1 speech, there is 
more work to be done to determine the final form a missile defense 
architecture might take. I believe we should continue to explore all 
options.
    Question. Critics of ballistic missile defense occasionally point 
out that such systems would not be able to defend against weapons of 
mass destruction delivered by non-missile systems such as ships or 
trucks. In your view does this fact detract from the case in favor of 
deploying defenses?
    Answer. No. The United States currently has efforts underway to 
address non-missile threats (e.g., intelligence, border controls, 
etc.), but now has no defenses against long-range ballistic missiles. 
Leaving ourselves vulnerable to ballistic missiles, does not diminish 
other threats. Rather, it encourages countries to obtain long-range 
ballistic missiles for potential coercion or blackmail of the United 
States and its allies to deter us from intervening in regional 
conflicts.
    Question. What programs will the administration implement to defend 
against non-ballistic missile attacks with nuclear, chemical or 
biological warheads?
    Answer. I believe we should pursue improvements in threat 
reduction, export controls, border controls, detection, 
decontamination, protective clothing, shelters and equipment, vaccines, 
antidotes, antibiotics, and other emerging technological advances.
    Question. Do you agree with President Bush that the goal of a 
missile defense protecting our nation is to defend against limited 
missile attacks, or do you believe that goal should be to defend 
against large scale attack, long-range, missile attacks?
    Answer. I agree with the President. Defense of the United States 
should be designed to deter and defend against limited threats, in 
particular, attacks from states that are currently attempting to 
develop or acquire long-range ballistic missiles, and against 
accidental or unauthorized launches.
    Question. Do you believe an appropriate justification for a 
national missile defense system is to protect against accidental or 
unauthorized ballistic missile launches?
    Answer. Yes.
                               abm treaty
    Question. Why do you believe the ABM Treaty no longer exists?
    Answer. The Bush administration has not promulgated a judgment on 
the treaty's legal status, but it has declared that it is treating the 
Treaty as being in effect. I support the administration's approach.
    Question. In your view, does the 1997 ABM multilateral Memorandum 
of Understanding have any force or effect, legal or moral?
    Answer. The United States signed the 1997 Memorandum of 
Understanding (MOU), but the Clinton administration did not send it to 
the Senate for approval of ratification. The Bush administration has 
not announced a specific decision on what it will do with the MOU. The 
question will be considered in the context of the President's statement 
that we should replace the ABM Treaty with a new framework that 
reflects a break from Cold-War thinking and facilitates development of 
a new, cooperative relationship between the United States and Russia.
                        strategic nuclear forces
    Question. The National Defense Authorization Act for Fiscal Year 
2001 requires the Secretary of Defense to conduct a new nuclear posture 
review.
    When would you expect this review to be completed and to what 
extent will this review encompass the views expressed by the President 
in his May 1, 2001, speech?
    Answer. I understand that the Defense Authorization Act states that 
the review must be completed in December 2001. I have been told the 
Department intends to submit the report by that date. I am unfamiliar 
with the details of the review. However, if confirmed, I would 
recommend that the study, as emphasized by President, recognize that 
although nuclear weapons still have a role to play in our security and 
that of our allies, the Cold War is over and the nature of the threat 
has changed. The administration has said it is aiming to achieve a 
credible deterrent with the lowest possible number of nuclear weapons 
consistent with our national security needs.
    Question. As the President pointed out in his National Defense 
University speech, ``nuclear weapons still have a vital role to play in 
our security and that of our allies.'' Would you describe your view of 
what that role is?
    Answer. Nuclear weapons remain important as a deterrent to threats 
and, if necessary, a response to use of nuclear, biological, or 
chemical weapons against the United States, its deployed forces, or its 
Allies and friends. Nuclear weapons also serve as a means of upholding 
U.S. security commitments to our Allies, as a disincentive to those who 
would otherwise contemplate developing or acquiring their own nuclear 
weapons, and as a hedge against an uncertain future.
    Question. What changes to our alert posture would you recommend, if 
any, to enhance security and stability?
    Answer. It is my understanding that the Department of Defense will 
review all aspects of nuclear forces and their posture as a part an 
overall review of our nuclear deterrent. I am not aware of any results 
of this review to date.
    Question. How do you define ``hair trigger alert'' and what U.S. 
weapons fit the description of being ``on hair trigger alert?''
    Answer. As President Bush said in his speech on May 1, at the 
height of the Cold War the Soviet Union and the United States had 
``thousands of nuclear weapons pointed at each other on hair-trigger 
alert.'' This meant first, that large numbers of ICBMs, SLBMs, and 
strategic bombers carrying thousands of warheads were maintained by 
both sides in an alert status that would have allowed their execution 
within minutes; and second, that the overall U.S.-Soviet strategic 
relationship was so characterized by distrust and potential for 
conflict that there was significant concern about the possibility of a 
first strike in a crisis. Clearly, the latter condition does not apply 
to the current U.S.-Russian relationship.
    Question. Do you believe that United States strategic systems are 
on ``hair trigger'' alert status today?
    Answer. As noted above, the overall U.S.-Russian relationship is 
not characterized by the same level of distrust that was present during 
the U.S.-Soviet standoff in the Cold War. In addition, changes have 
been made since the end of the Cold War that have altered the status of 
U.S. forces. For example, strategic bombers no longer stand alert on a 
day-to-day basis, and would require a few days (as opposed to minutes) 
before the force could be launched on a mission. The President has made 
clear his determination to change further the size, composition, and 
character of U.S. nuclear forces in a way that recognizes that the Cold 
War is over.
    Question. Would you support prompt de-alerting of any Russian or 
U.S. weapons that are to be retired?
    Answer. De-alerting of U.S. strategic systems scheduled for 
retirement is not without precedent. In 1991 former President Bush, as 
a part of the Presidential Nuclear Initiative, ordered the de-alerting 
of all Minuteman II ICBMs scheduled for deactivation under START I. I 
understand that this is an issue that will be carefully examined in the 
nuclear posture review.
    Question. What other weapons would you recommend come off ``hair 
trigger'' alert?
    Answer. As I have not been confirmed, it would be premature for me 
to recommend specific changes to the composition and character of U.S. 
forces. This issue will be considered in the review of U.S. nuclear 
forces.
    Question. Do you support repeal of section 1302(b) of the National 
Defense Authorization Act for Fiscal Year 1998?
    Answer. If confirmed, I will work with the committee to review the 
provision.
    Question. Do you support prompt retirement of the Peacekeeper ICBM?
    Answer. This is an issue that should be examined in the context of 
the review of U.S. nuclear forces.
    Question. Do you support unilateral reductions in strategic nuclear 
forces and if so, to what levels?
    Answer. The Bush administration has stated its intention to reduce 
the U.S. nuclear arsenal to the lowest level consistent with our 
national security requirements, including our commitments to our 
allies.
    The Presidential Nuclear Initiatives of 1991 and 1992 resulted in 
significant unilateral reductions to our tactical nuclear forces, and 
termination or curtailment of modernization programs for our strategic 
forces, without requiring years of detailed negotiations in the context 
of the Strategic Arms Reduction Treaties. This is an option for making 
reductions that warrants serious consideration.
    Question. Would you support reductions below START II force levels?
    Answer. I support reductions significantly below existing levels, 
which are a vestige of the Cold War. How far to reduce U.S. nuclear 
forces is being addressed in the review of nuclear forces.
    Question. Do you support dismantling warheads removed from 
deployment?
    Answer. I believe we need to address the dismantlement of warheads 
removed from deployment on a case-by-case basis.
    Question. In your view what is the appropriate size of the nuclear 
arsenal?
    Answer. As noted above, the Bush administration has stated its 
intention to reduce the U.S. nuclear arsenal to the lowest level 
consistent with our national security requirements, including our 
commitments to our allies.
    Question. Do you support a hedge strategy and if so for what 
purpose?
    Answer. We cannot reliably predict the future. Unforeseen 
circumstances will arise, despite our best efforts to anticipate them. 
The United States needs to take steps to reduce its nuclear forces, 
while at the same time ensuring that we have the needed flexibility and 
capacity to deploy an effective deterrent against any potential 
aggressor.
                technological capabilities of terrorists
    Question. A key disadvantage of the proliferation of information 
technology is that potential and acknowledged adversaries can now 
gather data, imagery, and intelligence updates from many of the same 
sources and means that the U.S. military uses. The ability to counter 
these emerging capabilities is a great concern for this committee.
    What would you propose the United States do to address this 
problem?
    Answer. The power of the Internet to access and assimilate data 
rapidly is a double-edged sword for the U.S. military--it provides 
opportunities and challenges. A search for information that previously 
would take days or even weeks to assemble can now be retrieved in hours 
through sophisticated data mining. But in any event, open source 
collection is not on the level of U.S. intelligence capabilities.
    While there are some circumstances where commercial availability of 
high quality satellite imagery may become a concern, we have commercial 
remote imagery policies in place to address these concerns. But I 
believe these policies should be reviewed. Regarding monitoring 
commercial open source intelligence analysis and commercial satellite 
imagery, it is useful for the Department to be aware of the information 
that is being disseminated and who the recipients are.
    I understand that DOD has included operational security (OPSEC) as 
a core capability of its Information Operations policy and implementing 
doctrine.
    Question. Open sources have reported recently that Usama Bin 
Laden's communications network ``is getting tougher to crack. He is 
using powerful encryption devices that can be bought on the open 
market. . . Usama Bin Laden has better communications technology than 
the U.S.'' These reports demonstrate that this growing technological 
capability is being and will continue to be used against U.S. interests 
by known terrorists.
    How would you address this growing terrorist technological 
capability?
    Answer. It is my understanding the Department does not agree that 
Usama Bin Laden has better communications than we do. Nevertheless, the 
worldwide proliferation of encryption, particularly on the Internet, 
underscores the need to ensure that the intelligence community has the 
necessary resources.
    Most of what is on the Internet is beyond the control of DOD or the 
U.S. Government, including the proliferation of encryption technology. 
In any event, we must take steps to keep pace with the changing 
environment.
                    export of sensitive technologies
    Question. In his October 1999 speech on high tech issues, then 
Governor Bush stated that, as President, he would safeguard sensitive 
high technology exports, while letting Americans sell what is already 
widely available elsewhere. He stated that wherever there is no 
security interest at stake, exports would be permitted. Wherever 
security is truly a stake, exports would be barred, with serious 
penalties for violations.
    If confirmed as Under Secretary of Defense for Policy, what 
policies and procedures do you believe need to be changed in the export 
license control process to reflect the proper balance between national 
security and commercial interests?
    Answer. Exports of sensitive technology affect U.S. national 
security interests in many ways. First, we must protect our military 
personnel and our security interests by ensuring that sensitive 
technologies are not exported to potential adversaries or to foreign 
entities that represent a significant diversion risk. Second, we must 
have sensible policies and procedures to ensure authorization of 
appropriate transfer of military and commercial systems and 
technologies that support our coalition warfighting objectives. 
Finally, we must be mindful that the United States is not the only 
country with advanced military and commercial technology. So, we need 
to work with our allies and friends to ensure that their policies and 
approaches toward the export of such technologies meet our common 
security interests. The Department of Defense has an essential role to 
play in designing and implementing export control policies. If 
confirmed, I will be working closely with Congress and my 
administration colleagues on these important matters.
    Question. Do you believe the Department of Defense should play a 
greater role in the export licensing process than it currently does in 
determining whether sensitive technologies should be exported overseas?
    Answer. The Defense Department must have a strong role in the 
export control policy process. Defense has talent and technical 
expertise in the export control area and should have the ability to 
apply these assets to the overall process. If confirmed, I will review 
the licensing process and determine whether to recommend specific 
changes in how DOD participates.
               cooperative threat reduction (ctr) program
    Question. Given the increase in Russia's GDP during the past year 
and the subsequent increases in its military spending and arms exports, 
what is your view regarding Russia's ability to assume more of the cost 
share associated with threat reduction efforts?
    Answer. Russia should do more to fund the reduction of the weapons 
of mass destruction left by the Former Soviet Union. Part of the 
ongoing administration review of assistance programs to Russia is to 
identify whether Russia is doing as much as it can to fund these 
reductions. The recent upturn in Russia's economic situation and 
increase in military spending should be taken into account.
    Question. What is your view regarding the fungibility of U.S. funds 
associated with threat reduction assistance in light of Russia's 
priority on military spending?
    Answer. Investment in the CTR program and other U.S. 
nonproliferation programs should not become a means by which Russia 
frees resources to finance its military modernization programs. The 
current review of these programs should look at such questions.
    Question. Do you support the CTR Program?
    Answer. Yes. The elimination of former Soviet strategic nuclear 
weapons, other weapons of mass destruction, and their delivery vehicles 
funded by the CTR program has benefited U.S. national security. The 
United States also has an interest in ensuring that Russia eliminates 
its stockpile of chemical munitions and biological agents. At the same 
time we do not want the CTR program to become a means by which Russia 
frees resources to finance its military modernization programs.
    Question. Do you support funding for the Russian chemical weapons 
destruction facility at Shchuch'ye?
    Answer. I have been advised that U.S. funding for the construction 
of a chemical weapon destruction facility at Shchuch'ye is under 
review. Many complex issues are involved in this program, including 
Russian and international commitments to this program. Such a review 
will help inform a decision on how the administration wants to proceed 
with this and other assistance programs.
    Question. Do you believe the CTR programs are making a long-term 
contribution to increasing the security of the United States?
    Answer. Yes. Please see answer to 19 C.
    Question. Do you believe the CTR programs are reducing the 
probability of an accidental or unauthorized launch of a Russian 
ballistic missile?
    Answer. The CTR program does not address directly the issue of 
accidental or unauthorized launches. To the extent that the program 
funds the elimination of former Soviet strategic nuclear weapons and 
their delivery vehicles, it can be said to contribute to the reduction 
of that danger.
    Question. Do you support increasing funding for the CTR programs as 
necessary to improve control over all aspects of Russia's nuclear 
arsenal including dismantlement of nuclear warheads, accounting storage 
and control of weapons-usable plutonium and uranium, and shutting down 
the last three Russian plutonium producing reactors?
    Answer. I have been briefed that the administration is currently 
reviewing the efficiency and effectiveness of all Russian assistance 
programs, including the CTR program. Upon completion of this review, a 
decision will be made regarding the scope of the program and related 
funding issues.
      comprehensive test ban treaty (ctbt)/nuclear test monitoring
    Question. In the CTBT Task Force report that was released in 
January 2001, General Shalikashvili notes that the U.S. should take 
whatever steps are necessary to deter or detect any nuclear explosions 
that could decrease national security, regardless of what it decides 
about the CTBT.
    What is your view of this statement?
    Answer. In principle, I agree that the United States should have 
the capability to deter or detect, identify, locate, and attribute any 
nuclear explosion that could decrease national security. In practice I 
believe that the Unites States needs to decide how much detection 
capability is possible and how much it is willing to pay, taking into 
account all defense and intelligence budget priorities.
    Question. Do you believe that our existing nuclear monitoring 
capabilities are sufficient to deter and detect any nuclear explosions?
    Answer. I understand that the Department deems our existing 
monitoring capabilities sufficient to detect some, but not all, nuclear 
explosions. The risk of detection will not necessarily deter testing. 
Whether a country will be deterred depends on its own calculation of 
whether the benefits of the test exceed possible penalties resulting 
from possible detection.
    Question. Are there steps that should be taken to enhance our 
nuclear monitoring capabilities?
    Answer. An answer to this question would require an examination of 
U.S. nuclear monitoring requirements and the extent to which current 
capabilities can satisfy them. If confirmed, I would review the 
adequacy of our ability to detect foreign nuclear tests and the cost-
effectiveness of potential improvements.
    Question. What should be the policy within the Department of 
Defense regarding programs that support the CTBT, e.g., the Center for 
Monitoring Research funded by the Department?
    Answer. Secretary Rumsfeld has said that he has concerns with CTBT: 
in particular, the risks to the reliability and safety of our nuclear 
weapon stockpile and the difficulty of verification. Secretary of State 
Powell has made clear the administration does not intend to pursue 
ratification. If confirmed, I would support a review of all planned DOD 
activities associated with the CTBT.
    Question. Do you support continued and full funding for the 
International Monitoring System?
    Answer. The U.S. contribution to the CTBT Organization, which 
includes support for the International Monitoring System, or IMS, is in 
the Department of State's budget. If confirmed, I would support a 
review of all DOD activities associated with the CTBT.
    Question. Do you support the Department of Energy's Stockpile 
Stewardship program?
    Answer. Yes, I support the Department of Energy's Stockpile 
Stewardship program for its contribution to maintaining a credible 
nuclear deterrent. Ensuring the safety, reliability, and effectiveness 
of U.S. nuclear weapons is important to the National security interests 
of the United States. If confirmed, I would support an administration 
review of the Stockpile Stewardship Program.
  reorganization of the office of the under secretary of defense for 
                            policy (ousd(p))
    Question. At the beginning of the Clinton administration, Secretary 
of Defense Aspin undertook a major reorganization of the OUSD(P). There 
are reports that the Bush administration is currently planning another 
reorganization of this office.
    If confirmed, what changes would you propose to the current 
organization of the OUSD(P)?
    Answer. If confirmed, I may propose a modest restructuring of the 
current organization to address better the concerns and priorities of 
the President and the Secretary of Defense and would look forward to 
consultations with this committee on those changes.
                              arms control
    Question. Are arms control treaties, either bilateral or 
unilateral, in the national interest of the United States, and, if so, 
under what circumstances?
    Answer. Arms control agreements and actions can be in the national 
interest of the United States. Each proposed treaty or unilateral 
action needs to be evaluated to determine whether it is in the U.S. 
national interest. Relevant considerations regarding treaties include: 
Is a proposed treaty's purpose in our national interest? Will the 
proposed terms accomplish the purpose? Is the proposed treaty 
verifiable? How likely is it that other parties will comply? How 
effective are efforts likely to be to enforce compliance if the treaty 
is violated? Are there collateral benefits of the proposed treaty even 
if its terms are violated by other parties?
                intermediate nuclear forces (inf) treaty
    Question. In April 1988 you co-authored an article in which you 
concluded that the INF Treaty does not accomplish its stated purpose: 
``the complete, verifiable elimination of U.S. and Soviet intermediate 
and shorter-range ground-based nuclear missiles.'' You also wrote that 
``various [INF] provisions would actually facilitate the creation of 
maintenance of a covert Soviet force of SS-20's, the most threatening 
of the Soviet missiles covered.''
    Answer. First, allow me to comment directly about the 1988 article 
on the INF Treaty, which I co-authored. This article highlighted a 
study of the INF Treaty performed by a six-person group of which I was 
a member. The study group did not oppose the treaty or take a position 
against ratification. One study member, Richard Perle, testified before 
Congress in favor of ratification. I did not oppose the treaty. In my 
view, the treaty has contributed positively to U.S. national security, 
and I think the Senate acted wisely in approving ratification.
    Also related to my past writings, questions have been raised about 
a 1997 article I wrote on the Palestinian-Israeli ``Oslo'' accord. The 
main theme of my several articles on that subject has been that the 
accords have been violated systematically and efforts to remedy the 
violations have proven ineffective. This point should not be taken as 
opposition to Oslo or peace negotiations as such. What I oppose are the 
violations, which have done harm to the negotiating process, to the 
Israeli and Palestinian victims of violence, and to U.S. interests.
    My criticisms over the years of the Oslo process specifically, and 
the arms control process in general, have all arisen from my conviction 
that such negotiations should take full account of the difficulties of 
enforcing compliance. This problem is closely tied to the character, 
stability, political organization and other traits of the parties. Each 
negotiation and each proposed agreement requires careful, pragmatic 
judgments by policymakers.
    Question. Do you believe that the Senate's ratification of the INF 
Treaty was a mistake?
    Answer. In that April 1988 article, my co-author and I examined 
drafting defects in the INF Treaty in the context of the Cold War, a 
period of hostility and suspicion on our part regarding the Soviet 
Union. The Cold War is over and our relationship with Russia is 
fundamentally different from and better than our relationship with the 
Soviet Union. As I stated above, I did not oppose the INF Treaty. In my 
view, the treaty has contributed positively to U.S. national security 
and I think the Senate acted wisely in approving ratification.
                      chemical weapons convention
    Question. The United States is a party to the Chemical Weapons 
Convention. During the floor debate on this treaty, you wrote urging 
opposition to it.
    What are your views of the Chemical Weapons Convention today?
    Answer. The United States is a party to the Chemical Weapons 
Convention and has accepted legal obligations under the Convention. The 
Department of Defense will implement its obligations fully, including 
those spelled out in the Senate Conditions to the Resolution of 
Ratification. If confirmed, I will work to make the Convention as 
effective as possible in eliminating the danger of chemical weapons.
    Question. Will you fully implement the terms and conditions of this 
treaty?
    Answer. Please see answer to 24 A.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications or information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                          treaties/agreements
    1. Senator Levin. Is it your opinion that all bilateral non-
dispositive treaties and agreements between the U.S. and the Soviet 
Union automatically lapsed in December 1991, or just the treaties?
    Mr. Feith. A number of the questions in this new set ask about my 
opinions on legal matters. Before I answer the specific questions, I 
wish to make some general comments. I recognize that the position for 
which I have been nominated--Under Secretary of Defense for Policy--is 
responsible for policy, not legal judgments. The administration will 
take positions on legal questions based on the advice of officials 
functioning as lawyers. The Under Secretary of Defense for Policy is 
not such an official. Even though I am a lawyer, I know that, if 
confirmed as Under Secretary, I would not be making legal judgments for 
the administration.
    I want also to note that, as Under Secretary, I would (if 
confirmed) do my policy work within the bounds of legal judgments made 
by other administration officials (and, of course, the courts). That 
would be true with regard to the ABM Treaty and all other law-related 
matters. I foresee no difficulty operating in this fashion even if 
those legal judgments differ from mine, let alone from an opinion I 
formulated in the private sector.
    Regarding in particular the legal memorandum I co-authored on 
whether the ABM Treaty of 1972 became, upon the U.S.S.R.'s demise, a 
treaty between the United States and the Russian Federation, I wish to 
note that that work was an attempt to describe the law, not to advocate 
what the law should be. As a practical matter, I think the controversy 
over the treaty's legal status has been overtaken by events, for this 
administration has made clear that it is respecting the terms of the 
ABM Treaty. President Bush has also stated that ``we must move beyond 
the constraints of the 30 year old ABM Treaty,'' but he has made it 
clear that he seeks to do so cooperatively with Russia. The issue of 
the ABM Treaty is, I recognize, essentially political and diplomatic in 
nature.
    On the issues of missile defense, arms control in general and, 
indeed, all defense policy matters, I believe that it is important to 
think questions through pragmatically, non-ideologically, with an 
appreciation that reasonable people differ on such important topics. If 
confirmed, I would see it as my responsibility to ensure that policy 
making at the Defense Department is an open-minded, comprehensive and 
honest process conducted in close consultation with Congress.
    Now, specifically in answer to Question 1: Based on legal research 
I did a few years ago, I concluded that, as a matter of international 
law, all bilateral, non-dispositive treaties and all other bilateral, 
non-dispositive agreements between the United States and the U.S.S.R. 
automatically lapsed upon the U.S.S.R.'s dissolution in December 1991. 
(See Attachment hereto, which reproduces from the legal memorandum I 
co-authored the section describing the relevant legal doctrine.) I 
appreciate that reasonable people differ on this question. In any 
event, in my view, nothing prevented or prevents the U.S. Executive 
Branch from deeming Russia the substitute for the U.S.S.R. with regard 
to U.S.-U.S.S.R. agreements that had come into force without Senate 
approval of ratification. It is my understanding that the U.S. 
Government deems such executive agreements as continuing with Russia as 
the substitute party.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    2. Senator Levin. Why would treaties lapse and not agreements?
    Mr. Feith. Please see answer to Question 1.


                               inf treaty
    3. Senator Levin. Is the treaty between the United States and the 
Union of Soviet Socialist Republics on the elimination of their 
intermediate-range and shorter-range missiles together with the 
Memorandum of Understanding and the two protocols thereto collectively 
referred to as the INF Treaty (Entered into force December 11, 1988) 
still in force?
    Mr. Feith. My understanding is that the United States is committed 
to complying with the terms of the INF treaty. I understand further 
that the Clinton administration stated that the 12 newly independent 
states that arose on the territory of the former U.S.S.R. ``remain 
subject to the [INF] Treaty's indefinite ban on the possession, 
production, and flight testing of intermediate-range and shorter-range 
missiles.'' No succession agreement has ever been signed, though my 
understanding is that the Clinton administration sought unsuccessfully 
to negotiate a succession agreement with the Russian Federation, 
Kazakhstan, Belarus, and Ukraine.
    The heads of state of ten of the twelve members of the Commonwealth 
of Independent States adopted the October 1992 Bishkek Resolution, to 
which the United States was not a Party. That Resolution declared that 
its signatories ``will implement the provisions of the INF Treaty with 
respect to their territory and taking into account their national 
interests.''
    If confirmed, I would support U.S. Government policy regarding the 
treaty, deferring on legal questions to the administration's legal 
counsel.


                               abm treaty
    4. Senator Levin. Both President Bush and President Clinton 
operated on the general principle that the treaty rights and 
obligations of the former Soviet Union had passed to the successor 
States, unless the terms or the purpose of the treaty required a 
different result. Edwin D. Williamson, the Legal Advisor to the State 
Department during the former Bush administration, confirming the idea 
that the Russian federation and the other Republics were successors to 
the treaty obligations of the former Soviet Union, wrote:

        ``Perhaps most importantly, however, continuity has been 
        supported by the republics themselves, who affirmed this 
        approach in the Alma Ata Declaration when they guaranteed the 
        ``fulfillment of international obligations stemming from the 
        treaties and agreements of the former U.S.S.R.''

    Would you then agree that the views of the Executive Branch, as 
dispositive of this issue, are that the U.S. and Russia are bound by 
the ABM Treaty?
    Mr. Feith. The Bush administration has declared that it is treating 
the Treaty as being in effect. I support the administration's approach 
and would, if confirmed as Under Secretary of Defense for Policy, defer 
on legal questions to the administration's legal counsel.

                          alma ata declaration
    5. Senator Levin. What, in your view, is the effect of the Alma Ata 
Declaration of December 21, 1991 made by the States of the Former 
Soviet Union that ``. . . the States participating in the Commonwealth 
(of Independent States) guarantee in accordance with their 
constitutional procedures the discharge of the international 
obligations deriving from treaties and agreements concluded by the 
former Union of Soviet Socialist Republics. . .'' and the January 13, 
1992 note in which the Russian Federation informed the U.S. that it . . 
. ``continues to perform the right and fulfill the obligations 
following from the international agreements signed by the Union of 
Soviet Socialist Republics . . .''?
    Mr. Feith. The December 21, 1991 and January 13, 1992 declarations 
of the newly independent states did not, I believe, impose any 
obligations on the United States. I believe this has been the 
consistent view of the U.S. Government since the declarations were 
made.

                      chemical weapons convention
    6. Senator Levin. Under what circumstances would you advocate 
withdrawing from the Chemical Weapons Convention?
    Mr. Feith. I do not advocate U.S. withdrawal from the Chemical 
Weapons Convention and cannot foresee the circumstance under which I 
would do so.

                    nuclear nonproliferation treaty
    7. Senator Levin. In an article you wrote for The Washington 
Quarterly, Spring 1986, you state that you are a strong supporter of 
the Nuclear Nonproliferation Treaty. Nevertheless in your article 
discussing and opposing the Chemical Weapons Convention on April 21, 
1997 in The Washington Times you write ``CWC Articles X and XI have 
become the main focus of the critics' case that the CWC will do more 
harm than good. These provisions, modeled on the `atoms for peace' 
concept of the NNPT (Nuclear Nonproliferation Treaty), aim to reward 
states that renounce chemical weapons by providing them with chemical 
technology and material `for peaceful purposes.' You then refer to 
these provisions as the ``poisons for peace'' provisions and state that 
these provisions would ``require the sale'' to Iran of ``an advanced 
chemical plant.''
    In making this statement, do you believe that the Nuclear 
Nonproliferation Treaty ``atoms for peace'' provisions have encourage 
or required proliferation? Do you have evidence that this has occurred?
    Mr. Feith. The NPT has been an important ``net plus'' for U.S. 
national security interests. The treaty embodies a number of bargains: 
For example, first, a bargain among the nuclear-weapons states. Second, 
a bargain between the nuclear-weapons states, on the one hand, and the 
non-nuclear-weapons states on the other.
    It has impeded (albeit not prevented altogether) the proliferation 
of nuclear weapons capabilities. The treaty's requirement (based on 
``atoms for peace'') to share nuclear technology ``for peaceful 
purposes'' and the related inspection regime have created problems, 
however. For example, before the Gulf War, Iraq was accepted as a 
participant in good standing in the International Atomic Energy Agency 
(IAEA) inspection program. After the Gulf War, our intelligence 
community (``IC'') was surprised when U.N. weapons inspectors 
discovered just how effective Iraq had been at concealing the Iraqi 
nuclear weapons program, which was much further along than the IC had 
thought. Iraqis told the U.N. inspectors that they had learned 
concealment techniques by participating in the IAEA inspection program 
under the NPT.
    Regarding my April 21, 1997 Washington Times article on the CWC, I 
did not state that Article XI would require the sale to Iran of an 
advanced chemical plant, but that Article XI might be cited as a 
pretext. I wrote:

        Article XI prohibits--or at least expresses disapproval of--
        export restrictions in the chemical field among treaty parties. 
        . . . If a German or a Chinese company arranges to sell an 
        advanced chemical plant to Iran and the U.S. government 
        protests that this would enhance Iran's chemical weapons 
        program, we can expect the German or Chinese government to cite 
        Article XI, arguing that the CWC not only permits but requires 
        the sale, for Iran will be a treaty party in good standing (or, 
        in any event a party against whom no violation has been 
        proved). [Emphasis added.]

                               inf treaty
    8. Senator Levin. In April 1988 you coauthored an article with 
Frank Gaffney in The Christian Science Monitor in which you criticized 
the Intermediate Nuclear Forces Treaty negotiated by President Reagan's 
administration which was pending before the Senate. You wrote: 
``Despite the general ban on INF systems, various treaty provisions 
could actually facilitate the creation or maintenance of a covert 
Soviet force of SS-20s, the most threatening of the Soviet missiles 
covered. While each such provision may seem a minor problem in its own 
right, taken together they mean that the Soviets, even without 
violating the specific terms of the treaty, could retain a militarily 
significant INF capability.'' In your view did the INF Treaty 
facilitate a covert force of SS-20s?
    Mr. Feith. No.

                            missile defense
    9. Senator Levin. The current and former Commanders in Chief of the 
Strategic Command have both said that the Russian command and control 
system over its nuclear weapons launch capability is intact and the 
possibility of an accidental or unauthorized launch is virtually non-
existent. Do you agree that Russia should not be a justification for an 
NMD system?
    Mr. Feith. I am not familiar with any such statements from the 
current or former Commanders in Chief of the Strategic Command. In any 
event, the primary purpose of U.S. missile defense, according to 
President Bush, would be to defend against the emerging ballistic 
missile threat from rogue states. Such defenses, however, would also 
help protect against accidental or unauthorized launches. Though the 
probability of an accidental or unauthorized launch may be very low, 
the consequences would be extremely grave, so serious that the United 
States should, in my view, assess the risk as warranting defensive 
measures, which could be cooperative in nature.

                          chinese icbm launch
    10. Senator Levin. The Chinese ICBMs are not maintained on a high 
alert status. Would you agree that the possibility of an accidental or 
unauthorized launch of a Chinese ICBM is remote?
    Mr. Feith. I have not been briefed on the PRC command and control 
system for nuclear weapons. My understanding is, however, that the 
primary purpose of U.S. missile defense, according to President Bush, 
would be to defend against the emerging ballistic missile threat from 
rogue states. Such defenses, however, would also help protect against 
accidental or unauthorized launches. Though the probability of an 
accidental or unauthorized launch may be very low, the consequences 
would be extremely grave, so serious that the United States should, in 
my view, assess the risk as warranting defensive measures, which could 
be cooperative in nature.

                            start i/start ii
    11. Senator Levin. Do you support repeal of section 1302(b) of the 
National Defense Authorization Act for Fiscal Year 1998 that requires 
the U.S. to maintain a START I stockpile until START II enters into 
force?
    Mr. Feith. I understand that the administration (1) is now 
reviewing nuclear forces and arms control policies as a part of the 
strategic review and (2) supports repealing this section of the 
Authorization Act. I have not been briefed on the underlying 
considerations and, therefore, cannot offer a personal view.
    The President has said he wants to reduce the number of U.S. 
nuclear weapons to the lowest level consistent with our national 
security, a policy that I support.
    If confirmed, I would work with the committee to review legislation 
that requires the United States to maintain defined levels of nuclear 
forces, and to reach a position that is consistent with the results of 
the strategic review recommendations.

                            peacekeeper icbm
    12. Senator Levin. Do you support prompt retirement of the 
Peacekeeper ICBM?
    Mr. Feith. This is an issue that will be examined in the Nuclear 
Posture Review. I am aware that the President has said that he wants to 
reduce nuclear forces, a policy that I support. If confirmed, I would 
need to be briefed on the Peacekeeper issue before I could form a 
personal opinion on it.

                        strategic nuclear forces
    13. Senator Levin. Do you support unilateral reductions in 
strategic nuclear forces? To what levels? Would you support reductions 
below the START II force levels? Would such reductions be unilateral, 
pursuant to treaty, or other government-to-government agreement?
    Mr. Feith. This administration has stated its intention to reduce 
the U.S. nuclear arsenal to the lowest level consistent with our 
national security requirements. I support this policy and, in 
particular, support reductions below existing levels. But whether it 
will be possible to reduce to below START II levels is a question on 
which I have not yet formed a personal opinion. I understand that the 
ongoing nuclear forces review is addressing that question.
    Nor do I yet have a personal view on how best to pursue reduction 
goals. This is a complex question that hinges on many military and 
diplomatic considerations. If confirmed, I would get briefed on all the 
relevant facts and considerations and would look forward to working 
with this committee in thinking through the best course of action for 
arms reductions.

                            nuclear arsenal
    14. Senator Levin. Do you support dismantling warheads moved from 
deployment? In your view what is the appropriate size of the nuclear 
arsenal? Do you support a hedge strategy and if so for what purpose?
    Mr. Feith. I cannot now offer a personal view on dismantling 
warheads, the appropriate size of the nuclear arsenal or the hedge 
strategy. These are complex issues on which, if confirmed, I would have 
to be briefed regarding all relevant facts and considerations.

                             nuclear forces
    15. Senator Levin. How do you define ``hair trigger alert'' and 
what U.S. weapons fit the description of being ``on hair trigger 
alert?''
    Mr. Feith. I do not have a personal view on this issue nor am I in 
a position to define the term ``hair trigger alert.'' If confirmed, I 
would need to be briefed on the posture of our nuclear forces before 
taking a position. The President has made clear his determination to 
change further the size, composition and character of U.S. nuclear 
forces in a way that takes full account of current international 
circumstances.

                          russian/u.s. weapons
    16. Senator Levin. Would you support prompt de-alerting any Russian 
or U.S. weapons that are to be retired?
    Mr. Feith. This measure is not without precedent. I understand this 
issue will be examined as a part of the nuclear posture review. If 
confirmed, I would have to be briefed on all relevant facts and 
considerations, but my present inclination is to look favorably at the 
suggestion.

                            nuclear posture
    17. Senator Levin. What other weapons would you recommend come off 
``hair trigger'' alert?
    Mr. Feith. I do not now have a personal view on this issue. I 
understand that this issue will be considered during the nuclear 
posture review and, if confirmed, I would study this issue carefully 
before making a recommendation to the Secretary of Defense. My present 
inclination is to look favorably at prudent de-alerting proposals.

                               abm treaty
    18. Senator Levin. In your view does the 1997 ABM multilateral MOU 
have any force or effect, legal or moral?
    Mr. Feith. The 1997 ABM multilateral MOU is an agreement that the 
United States signed but has not ratified. The Executive Branch has 
never submitted it to the Senate for approval of ratification, so the 
MOU is not in force. In any event, customary international law 
prohibits a signatory from defeating an agreement's object and purpose 
unless and until the signatory makes clear its intention not to become 
a party.

    19. Senator Levin. Would you, if confirmed, recommend to the 
Secretary of Defense or others that if negotiations to modify the ABM 
Treaty are not successful, that the Treaty could or should be viewed as 
no longer in force? If confirmed, will you advocate this position?
    Mr. Feith. Regarding your first question: As I understand it, 
within the administration, this question, if it should arise, would be 
resolved by the President on the basis of legal advice from the 
administration's legal counsel. Please be assured that I appreciate 
that the Under Secretary of Defense for Policy should not render legal 
opinions.
    As I noted in my answer to Question 1, as a practical matter, I 
think the controversy over the treaty's legal status has been overtaken 
by events, for this administration has made clear that it is respecting 
the terms of the ABM Treaty. President Bush has also stated that ``we 
must move beyond the constraints of the 30-year-old ABM Treaty,'' but 
he has made it clear that he seeks to do so cooperatively with Russia. 
The issue of the ABM Treaty is, I recognize, essentially political and 
diplomatic in nature. Even though I am a lawyer, I know that, if 
confirmed as Under Secretary, I would not be making legal judgments for 
the administration. As Under Secretary, I would (if confirmed) do my 
policy work within the bounds of legal judgments made by other 
administration officials (and, of course, the courts). That would be 
true with regard to the ABM Treaty and all other law-related matters. I 
foresee no difficulty operating in this fashion even if those legal 
judgments differ from mine, let alone from an opinion I formulated in 
the private sector.

                            missile defense
    20. Senator Levin. In your view, to what extent should the United 
States utilize the ground-based architecture developed under the 
previous administration as the primary element for implementing the 
President's missile defense plans, if, as currently, that system can 
meet the operational requirement for defending all 50 States against 
ballistic missile attack? What would be the rationale for expanding 
beyond the land-based system?
    Mr. Feith. The question of alternative architectures for missile 
defense is complex and I have not been briefed to the extent that would 
permit me responsibly to form a judgment on the question.

                              north korea
    21. Senator Levin. Do you believe U.S. policy should continue to 
seek an end to North Korea's nuclear weapons and ballistic missile 
programs? Should these efforts include talks and negotiations with 
North Korea?
    Mr. Feith. My answer to both questions is yes.

                      cooperative threat reduction
    22. Senator Levin. Will you support the Cooperative Threat 
Reduction programs, increasing the funding as necessary to improve 
control over all aspects of Russia's arsenal including dismantlement of 
nuclear warheads, accounting storage and control of weapons usable 
plutonium and uranium, and shutting down the last three Russian 
plutonium producing reactors?
    Mr. Feith. I strongly support the CTR program. As to the particular 
elements of the program, I would, if confirmed, get briefed on all 
relevant facts and circumstances to allow me to formulate views on an 
appropriate funding level.

    23. Senator Levin. Do you support CTR funding for the Russian 
chemical weapons destruction facility at Shchuch'ye?
    Mr. Feith. I do not have a personal opinion on Shchuch'ye. I would, 
if confirmed, get briefed on all relevant facts and circumstances to 
allow me to formulate a view.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                                treaties
    24. Senator Byrd. The article you co-authored in 1988 on the 
Intermediate-Range Nuclear Forces (INF) Treaty was critical of Senate 
action to clarify the terms and obligations of the treaty. What is your 
understanding of the role of the Senate in the making of treaties? To 
what degree do you believe the Senate is bound by international law, as 
opposed to the Constitution, in its consideration of treaties?
    Mr. Feith. My 1998 INF article, cited in the question, did not 
oppose Senate action to clarify the terms and obligations of the 
treaty. Rather, it urged the Senate to clarify those items with the 
administration and then also to ensure a meeting of minds on the 
clarifications between the U.S. and U.S.S.R. governments.
    Treaty ambiguities gave rise during the Cold War to many bitter 
U.S.-Soviet exchanges that strained relations and eroded respect for 
arms control and international law. I believe that efforts to craft 
precise language should be as serious in the field of international law 
as they are in the field of ordinary U.S. domestic law.
    I view the Senate as having a crucial role to play, through the 
exercise of its constitutional treaty-making authority, in clarifying 
the meaning of international agreements negotiated by the Executive 
Branch.
    The Constitution of the United States, Article II, section 2, 
paragraph 2 vests in the President the power ``by and with the Advice 
and Consent of the Senate, to make Treaties, provided two thirds of the 
Senators present concur; . . '' Article VI, paragraph 2 provides that 
``This Constitution, and the Laws of the United States which shall be 
made in pursuance thereof; and all Treaties made, or which shall be 
made, under the Authority of the United States, shall be the supreme 
law of the Land; . . '' Accordingly, as a matter of internal law, an 
agreement that would constitute a ``treaty'' for purposes of Article 
II, section 2, paragraph 2 cannot constitutionally bind the United 
States if it has not been concurred in by a two-thirds vote of the 
Senators present.
    With respect to the second question, it is my understanding that 
international law does not bind the Senate in its consideration of 
treaties. The Senate has a crucial role under the Constitution in the 
making of treaties, so it is important that the Executive Branch give 
the Senate an accurate understanding of the terms of a treaty when the 
Senate deliberates on whether to provide advice and consent to 
ratification.

    25. Senator Byrd. May authoritative representations made before the 
ratification of a treaty later be altered without the further advice 
and consent of the Senate?
    Mr. Feith. Please see my answer to Question 1 as to the fact that 
the Under Secretary of Defense for Policy has responsibility to give 
policy but not legal advice.
    In his confirmation process, Mr. William Taft, IV, now State 
Department Legal Adviser, made the following statements:
    ``The Constitution's scheme of sharing the treaty-making power 
requires that mutual understandings on treaty interpretation reached 
with the Senate in the ratification process must be respected. . . . My 
view is that modifications or amendments to treaties should be 
submitted to the Senate for its advice and consent.''
    I concur with these statements.

    26. Senator Byrd. Do you believe that the Senate gives its advice 
and consent to a treaty irrespective of representations made to it by 
the Executive Branch?
    Mr. Feith. Treaty-making is a power shared by the President and the 
Senate. During the process of advice and consent, I believe the 
Executive Branch is obliged to provide information necessary to allow 
the Senate to fulfill the Senate's constitutional role. Such 
information should be complete and accurate and the Senate should be 
able to rely upon it.

                            sofaer doctrine
    27. Senator Byrd. Did you participate in the formulation of the 
``Sofaer doctrine?''
    Mr. Feith. I had no official or formal involvement in the 
formulation of the ``Sofaer doctrine,'' nor do I recall any particular 
informal role.

    28. Senator Byrd. At the time you wrote the article on the INF 
Treaty, what were your views on the ``Sofaer doctrine?'' Have your 
views on this doctrine changed?
    Mr. Feith. I did not perform independent legal research on the 
matter and do not recall ever having formulated a definite opinion.

                                treaties
    29. Senator Byrd. If you were to be called to testify before a 
Senate committee, can you give an authoritative reading of any 
provision of any treaty that might affect the Department of Defense?
    Mr. Feith. I do not know under what circumstances the Under 
Secretary of Defense for Policy would be called upon to give an 
authoritative reading of a treaty provision. In any case, if I were 
called upon to do so, I would rely upon guidance provided by 
administration legal counsel.
                                 ______
                                 
               Questions Submitted by Senator Max Cleland
                               abm treaty
    30. Senator Cleland. Your position regarding the ABM Treaty seems 
to be that it has no legal force as of the dissolution of the USSR, but 
that the U.S. and Russia have chosen to continue it in the absence of a 
legal requirement to do so. Would you recommend that the U.S. abrogate 
the treaty unilaterally without a successor agreement and over the 
strenuous objections of a significant number of our Allies?
    Mr. Feith. The Bush administration has declared that it is treating 
the ABM Treaty as being in effect, an approach I support. The President 
seeks to work with Russia to replace the ABM Treaty with a new 
framework that reflects a break from Cold War thinking and a new, 
cooperative relationship. The administration is in consultations with 
the Russians and with the allies on the framework. The President has 
said we will address Russian concerns. The President has also 
emphasized that we are not interested in defense that would separate 
the United States from our allies. It is clear that this administration 
values our allies and appreciates the importance of creating as broad a 
base of support as possible for U.S. policies. If confirmed, I would 
work toward achieving that new framework and the support of our allies.

                            missile defense
    31. Senator Cleland. The term ``international cooperation,'' like 
``bipartisan cooperation,'' implies that the parties in such a 
cooperative relationship cannot always have it their way. Is it 
appropriate for a nation such as the United States to surrender some of 
its prerogatives because of the preferences of its avowed allies? Under 
what circumstances would you disregard the preferences of allies? In 
your mind, is the deployment of a National Missile Defense system 
important enough to pursue even over the objections of allies? Why?
    Mr. Feith. I believe that in the area of missile defense, the 
United States and our allies have fundamentally harmonious interests. 
In my view, the United States should proceed in this area in accordance 
with its national interests, taking into account the views of our 
allies. Good alliance relations are an important element of U.S. 
national interests. I think there are reasonable grounds for hoping 
that the United States and our allies will work closely and 
cooperatively in coming years to protect against the threats resulting 
from the proliferation of weapons of mass destruction and missile 
capabilities. The United States has begun a cooperative allied 
consultation process. As a result of the first round of consultations 
in May and Secretary Rumsfeld's recent June visit to Europe, I think 
the administration has a better understanding of allied views, both 
supportive and skeptical. I know that the administration welcomes the 
allies' input and intends to continue the consultations. The desirable 
outcome, I believe, is alliance consensus, which enlightened U.S. 
leadership has often over the years been able to produce.

                              iraq policy
    32. Senator Cleland. Will you actively oppose any efforts to employ 
U.S. ground forces in efforts to replace the current regime in Iraq 
with one more favorable to U.S. interests? Under what circumstances 
would you consider supporting the commitment of American ground forces 
to areas in and around the Persian Gulf in which hostilities are 
ongoing or imminent?
    Mr. Feith. I do not favor--indeed I oppose--sending U.S. ground 
forces into combat in Iraq to overthrow Saddam Hussein.
    At the same time, I agree with Section 3 of the Iraq Liberation Act 
(Public Law 105-338), that it should be U.S. policy ``to promote the 
emergence of a democratic government to replace [the Saddam Hussein] 
regime.''
    I cannot now identify what circumstances in the future might 
justify a commitment of U.S. ground forces in hostilities in the 
Persian Gulf area. I did, however, support the use of U.S. forces to 
liberate Kuwait in the 1990-1991 crisis. I supported President 
Clinton's decision in 1994 to deploy U.S. ground forces in Kuwait to 
deter another Iraqi invasion. But I always consider any decision to 
commit U.S. forces of any kind a matter of the profoundest seriousness 
which must be considered rigorously and thoroughly on the basis of its 
own particular circumstances.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                             israeli policy
    33. Senator Thurmond. The fiscal year 2000 Omnibus Appropriations 
Act provided $1.2 billion to assist the Government of Israel with 
implementation of the Wye River Accords, a peace agreement signed 
October 23, 1998. Specifically, the U.S. aid was to provide funding to 
move Israeli troops and military installations out of the occupied 
territories, as called for in the agreement. As part of this 
assistance, the U.S. Army Corps of Engineers is tasked to construct two 
infantry-training bases, and a Reserve division storage/logistics base 
in Israel. The program, estimated to cost $233 million, is funded with 
Foreign Military Financing.
    Considering the current turmoil in Israel, should the United States 
continue supporting the construction of these bases? Have the Israeli 
troops been withdrawn from the territories, as required by the Wye 
agreement?
    Mr. Feith. I have not yet been briefed on this legislation and the 
implementation issues. If confirmed, I would review this matter and 
consult with the committee about it.

                              north korea
    34. Senator Thurmond. Recently President Bush implied that 
continuing the peace talks with North Korea were not ``worthwhile.''
    What are your views on the role North Korea has in maintaining 
peace and stability in the Pacific region?
    Mr. Feith. The administration has stated it plans to resume 
negotiations with North Korea. As I understand it, the President has 
directed his national security team to undertake discussions with North 
Korea on a broad agenda, including: improved implementation of the 
Agreed Framework relating to North Korea's nuclear activities; 
verifiable constraints on North Korea's missile programs and a ban on 
its missile exports; and a less threatening conventional military 
posture. As the President stated, the approach will offer North Korea 
the opportunity to demonstrate the seriousness of its desire for 
improved relations. I support the President's approach.

                          persian gulf policy
    35. Senator Thurmond. The presence of U.S. military forces in the 
Persian Gulf region is seen as an important factor in maintaining 
stability in the region by our strategic planners. However, some of our 
allies in the region are under considerable internal pressure to reduce 
or eliminate the presence of our forces.
    In your view, what are the long-term implications of maintaining 
large numbers of our forces in the Persian Gulf region?
    Mr. Feith. Since 1990, most U.S. forces in the Persian Gulf region 
have been there to carry out missions arising from Iraq's failure to 
abide by the terms of the 1991 Gulf War cease-fire. The requirement to 
maintain the U.S. presence depends in large measure on developments in 
Iraq.
    In general, I believe the U.S. military presence in the Gulf should 
take account of the evolution of threats to U.S. interests and should 
be shaped through continuing consultations with our allies and partners 
in the Gulf. The U.S. presence in the region contributes to deterrence, 
regional stability and U.S. interests generally.

                              russia/china
    36. Senator Thurmond. Both Russia and China have expressed their 
concern regarding the United States sole super power status. There are 
some foreign policy experts who believe that these two nations may join 
others to check U.S. influence throughout the world.
    In your judgment, is there a basis for such concerns and is there a 
potential that we could enter another Cold War era?
    Mr. Feith. In my view, as the United States contributes to shaping 
the international security environment, we should work to avoid 
creating incentives for other states to coalesce in opposition to our 
interests and those of our allies. The concern reflected in the 
question is an important one, and I know that the administration is 
intent on developing relations with Russia and China that are non-
confrontational.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                            china mil-to-mil
    37. Senator Smith. I'm directing this comment to you because I'm 
sure you're aware of controversy over the U.S./China military-to-
military exchanges--I authored the fiscal year 2000 DOD restrictions on 
these exchanges.
    I have requested a briefing on the department's perspective of the 
value of these contacts, the lack of reciprocity on the part of the 
Chinese, and to discuss how we might improve the program--if it is 
going to continue--so that it meets some clear objectives and is not 
divulging militarily useful information to the Chinese military.
    Can you comment on the administration's change in the mil-to-mil 
program--how the new ``case-by-case'' review differ from the previous 
program under the Clinton administration?
    Specifically, are we still trying to have the PRC observe at the 
COBRA GOLD exercises, as CINCPAC Admiral Blair stated?
    Mr. Feith and Dr. Crouch. We have been advised that the Department 
of Defense began in January a series of broad policy reviews. One of 
the areas to be examined in detail was the program for military-to-
military exchanges with the People's Republic of China. The first step 
in this process was to undertake a serious review of the schedule of 
military-to-military events with the PLA planned for 2001.
    As we understand it, since the April 1 EP-3 incident over the South 
China Sea, business with China has not been as usual. Steps have been 
taken to limit the travel of DOD personnel to China and to limit 
contact with PRC officials, especially PLA personnel. The military-to-
military program has been conducted on a case-by-case basis, with 
special emphasis on (1) benefit to U.S. interests and (2) reciprocity.
    The PRC, along with other countries in the region, was invited to 
observe the command post portion of EXERCISE COBRA GOLD. The PRC, 
however, declined the invitation.

                             taiwan policy
    38. Senator Smith. I would also like to raise with you in the 
future the issue of closer ties between U.S. and Taiwan military 
forces--I believe we should lift the petty and counter-productive 
restrictions on U.S. military officer travel to Taiwan and allow more 
U.S. military personnel to train Taiwanese military personnel in 
Taiwan.
    We should also be establishing direct and secure communications 
between Taiwan and the U.S. military, linking PACOM and Taiwan's 
defense ministry.
    I urge you to undertake a review of U.S. military policy towards 
Taiwan. Not taking these steps could be disastrous in the event of 
another crisis in the straits.
    Mr. Feith and Dr. Crouch. It is our understanding that the 
Department of Defense is reviewing a range of issues associated with 
our defense relationship with Taiwan, including enhancing our training 
programs. If confirmed, we would give serious consideration to the 
issue of U.S. military visitors to Taiwan.

                      cooperative threat reduction
    39. Senator Smith. In your responses to the committee's questions, 
you were asked about the Cooperative Threat Reduction (CTR) program. 
There have been ongoing concerns, some lodged by the GAO, others by 
experts on Russia, that the program has failed to meet its objectives--
that it has freed up Russian resources to remove obsolete weapons 
systems while the Russian continue with military modernization and 
proliferation of weapons of mass destruction to rogue nations.
    I have also been told that there might be some confusion over CTR's 
accomplishments because of use of the terms ``deactivation, 
dismantlement and destruction.'' Shouldn't we be focusing on 
destruction of warheads as opposed to simply their deactivation or 
dismantlement? Can you comment further on CTR and whether the program 
warrants an overhaul and how can we go about clarifying program 
objectives and evaluating success or failure?
    Mr. Feith. I do not have a personal view on this issue. If 
confirmed, I would expect to be briefed on these important issues and 
would look forward to consulting with you on the development of policy 
in this area.

                          asia pacific center
    40. Senator Smith. Are you familiar with the Asia Pacific Center 
for Security Studies? The center was mentioned in a recent New York 
Times article, ``Rumsfeld Limiting Military Contacts with the 
Chinese.''
    Could you inform the committee as to any reason why the Asia 
Pacific Center for Security Studies does not list Taiwan on its 
website's ``List of Countries in the Asia Pacific Region?''
    Could you inform the committee as to why, after having been advised 
by the Secretary of Defense to invite a Taiwanese scholar to a May 
conference, the Asia Pacific Center then postponed the conference?
    Are you aware of whether the Pentagon felt undercut on its missile 
defense agenda by the Director's (Asia Pacific Center) recent arguments 
in Australia against missile defenses?
    Mr. Feith. I do not have a personal view on this issue. If 
confirmed, I would expect to be briefed on these important issues and 
would look forward to consulting with you on the development of policy 
in this area.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                         contingency operations
    41. Senator Collins. As Secretary Rumsfeld recently told the press, 
contingency operations is one of several issues under examination in 
the ongoing Rumsfeld Strategic Review. Given that one of your oversight 
responsibilities is to assist the Secretary of Defense in preparing 
written policy guidance for the preparation and review of contingency 
plans or crisis management models, will you give us your thoughts on 
the possibility of having a standing joint task force that would be 
established solely to deal with contingency operations?
    Mr. Feith. I do not have a personal view on this issue. This issue 
is now under review by the Secretary. If confirmed, I look forward to 
participating in the review and working with this committee on the 
issue.

                     deployment of our armed forces
    42. Senator Collins. I would like to briefly discuss your views on 
the Department's engagement policy. The decision to employ our troops 
in support of our national interests is one of the most important 
decisions that a President has to make. It is imperative that we not 
only carefully assess the use of force, set achievable goals, and 
determine the cost, prior to deploying our troops; but that we 
effectively characterize success criteria before placing them in harms 
way. If confirmed, how will you establish such criteria to ensure that 
when our U.S. military forces are employed, that the mission is clearly 
defined and a definite end is identified so we can bring our forces 
home at the appropriate time, limiting the number of continuous and 
indefinite military operations? Further, on the subject of continuous 
operations, would you identify for the committee, operations in the 
past decade involving overseas deployments, which you believe have 
contributed to engagement activities, strengthened alliances, deterred 
threats; and enhanced U.S. military access in key regions?
    Mr. Feith. As you state, deploying U.S. armed forces in support of 
our national interests is one of the President's weightiest decisions. 
It is important that we carefully assess the use of force, set 
realistic goals and determine the risks involved before sending our 
troops into harm's way. The considerations you have laid out in your 
question are, I believe, valid. While there may not be any objective 
criteria applicable to all circumstances, and each contingency must 
therefore be addressed on a case-by-case basis, it is necessary to have 
definite political and military objectives before forces are deployed. 
If confirmed, I will work with DOD officials, others in the 
administration, and this committee to help ensure that when we deploy 
our armed forces, the mission is justified and well-defined and the 
strategy is well-conceived.
    Our deployments in the Persian Gulf area and in the Balkans are 
examples of overseas operations that have served the kind of U.S. 
interests specified in the question.
                                 ______
                                 
    [The nomination reference of Douglas Jay Feith follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Douglas Jay Feith, of Maryland, to be Under Secretary of Defense 
for Policy, vice Walter Becker Slocombe.
                                 ______
                                 
    [The biographical sketch of Douglas Jay Feith, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Douglas J. Feith
    Douglas J. Feith is currently the Managing Attorney of the law firm 
of Feith & Zell, P.C., of Washington, DC. He founded the firm in 1986.
    Mr. Feith began his professional career as an Attorney with the 
Washington, DC, law firm of Fried, Frank, Harris, Shriver & Kampelman 
(1978 to 1981). In 1981-1982, he served on the staff of the National 
Security Council as a Middle East specialist, working primarily on 
Arab-Israeli, Persian Gulf and energy security issues. From 1982 to 
1984, he was Special Counsel to Assistant Secretary of Defense Richard 
Perle.
    In 1984, Mr. Feith was appointed Deputy Assistant Secretary of 
Defense for Negotiations Policy. In that position, he was responsible 
for policy for various arms control negotiations, including those on 
conventional force reductions, Confidence, and Security-Building 
Measures in Europe, chemical and biological weapons and nuclear 
testing, nuclear non-proliferation issues, and East-West political 
relations. For his work, he received the Defense Department's highest 
civilian award, the Distinguished Public Service Medal.
    A native of Philadelphia, Pennsylvania, Mr. Feith received an A.B. 
degree magna cum laude from Harvard College in 1975 and a J.D. degree 
magna cum laude from the Georgetown University Law Center in 1978. Mr. 
Feith has published extensively on matters of international law and on 
foreign and defense policy. His writings have appeared in The New York 
Times, The Washington Post, The Wall Street Journal, Commentary, The 
New Republic and elsewhere. In addition, he has contributed chapters to 
a number of books, including James W. Muller, ed., Churchill as 
Peacemaker; Douglas J. Feith, et al., Israel's Legitimacy in Law and 
History; and Uri Ra'anan, et al., eds., Hydra of Carnage: International 
Linkages of Terrorism. 
    Mr. Feith now serves as the President of the Charles E. Smith 
Jewish Day School, a K-12 school with over 1,400 students. He is a 
member of the Council on Foreign Relations and the International 
Institute for Strategic Studies. He lives in Bethesda, Maryland with 
his wife, Yanna, and their four children, Daniel, David, Dafna, and 
Dore.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Douglas Jay 
Feith in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Douglas Jay Feith.

    2. Position to which nominated:
    Under Secretary of Defense for Policy.

    3. Date of nomination:
    April 30, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 16, 1953; Philadelphia, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Yanna Feith (nee Tatyana Belenky).

    7. Names and ages of children:
    Daniel J. Feith, 17; David J. Feith, 13; Dafna M. Feith, 9; Dore L. 
Feith, 4.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Central High School (Philadelphia, PA), graduated in 1971; Harvard 
College, A.B. (magna cum laude) 1975; Georgetown Univ. Law Center, J.D. 
(magna cum laude) 1978.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1986-now: Managing attorney, Feith & Zell, P.C., Washington, DC 
(law firm).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Summer 1979, Intern, U.S. Arms Control and Disarmament Agency; 
1981-82, Staff member, National Security Council; 1982-84, Special 
Counsel to Assistant Secretary of Defense (International Security 
Policy); 1984-86, Deputy Assistant Secretary of Defense for 
Negotiations Policy; 1986-?, Consultant to Office of Secretary of 
Defense (I do not recall if I ever charged for any consulting services 
and I did not recall when the consultancy lapsed.)

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    Feith & Zell, PC (law firm, President and managing attorney; 
Charles E. Smith Jewish Day School (non-profit K-12 school in 
Rockville, MD), President; Foundation for Jewish Studies (non-profit 
educational organization), Director/officer.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Council of Foreign Relations, Member; Center for Security Policy, 
Member, advisory board; District of Columbia Bar, Member; Harvard Club 
of Washington, DC, Member; Jewish Community Center of Washington, DC, 
Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Middle East policy advisor in Dole for President Campaign, 1996.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

 
                Year                                            Amount
 
1996................................  I do not have personal    $ 500.00
                                       records showing any
                                       political
                                       contributions for
                                       1996.
1997................................  Wash Pol Action             500.00
                                       Committee.
1998................................  Wash Pol Action             500.00
                                       Committee.
1998................................  Kyl for Senate........    2,000.00
1998................................  Wash Pol Action             500.00
                                       Committee.
1999................................  Kyl for Senate........    2,000.00
1999................................  Wash Pol Action             500.00
                                       Committee.
1999................................  Friends of Doug Duncan      500.00
2000................................  Gilman for Congress...      500.00
2000................................  Bush for President....    1,000.00
2000................................  Odom, James for             250.00
                                       Congress.
2000................................  Washington PAC........      500.00
2000................................  Saxton for Congress...      500.00
2000................................  Spence for Congress...      500.00
2001................................  Washington PAC........      500.00
 


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    1986, Department of Defense Distinguished Public Service Medal; 
1997, Justice Louis D. Brandeis Award from Zionist Organization of 
America.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    See list below. I do not have a comprehensive list of my published 
writings, but the list below, I believe, is representative of the range 
of those writings.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    See attached. I have given speeches at various forums, symposia and 
conferences. Only my formal speeches are attached. The substance of all 
the relevant speeches, I believe, is conveyed in the writings listed in 
my answer to question 15 of part A above.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Douglas Jay Feith.
    This 30th day of April, 2001.

    [The nomination of Douglas Jay Feith was reported to the 
Senate by Chairman Levin on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                              ----------                              

    [Prepared questions submitted to Dr. J.D. Crouch by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                      May 21, 2001.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   J.D. Crouch, II.
cc: Hon. Carl Levin,
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. The 
focus on ``jointness'' outlined in the Defense Reorganization Act of 
1986 has significantly enhanced the readiness and warfighting 
capabilities of the U.S. armed forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening civilian control of DOD, 
improving military advice given to the President and Secretary of 
Defense, and advancing the ability of the Department to carry out its 
fundamental mission--protecting America's security and furthering its 
vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects are the 
clear responsibilities and authorities given the CINCs for mission 
accomplishment, and the increased attention to formulation of strategy 
and contingency planning.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the National strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am unaware of any proposals to modify Goldwater-Nichols. 
The Department will should consult closely with Congress, especially 
this committee, on any changes that might be appropriate.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for International Security Policy?
    Answer. I understand that, if confirmed, my duties as Assistant 
Secretary of Defense for International Security Policy will be to serve 
as the principal assistant and advisor to the Under Secretary of 
Defense for Policy in formulating and implementing national security 
and defense policy in a wide range of areas, including: nuclear forces; 
technology security; missile defense; Europe and NATO; Russia, Ukraine, 
and Eurasia; arms control, non-proliferation, and counter-
proliferation.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld would prescribe for you?
    Answer. I would expect Secretary Rumsfeld to look to the Assistant 
Secretary of Defense for International Security Policy to fulfill all 
the duties assigned to that office by statute and regulation--in 
particular, assistance and advice on the formulation of national 
security and defense policy in the areas noted in 2A .
    Question. How do you see the civilian role, as opposed to the 
military role, in the formulation of strategy and contingency planning?
    Answer. As I understand this activity, the Policy Office, on behalf 
of the Secretary, initiates the contingency planning process though its 
preparation of the Presidentially-approved Contingency Planning 
Guidance, and subsequently reviews actual plans developed by the 
military. Formulation of strategy and the contingency planning guidance 
that flows from it is an inherently civilian role. The military as an 
institution or through individual leaders, has an important part in 
this process. However, leadership and final decisions relating to 
formulation of strategy and contingency guidance is appropriately 
within the purview of the Nation's civilian leaders.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for International Security 
Policy?
    Answer. The Department as a whole must strive to ensure that the 
U.S. military maintains the ability to deter the range of threats we 
face and defend our national interests in a world of diverse and not 
necessarily predictable threats. The United States government faces 
major challenges in properly supporting our forces today while 
transforming the military to deal effectively with future 
uncertainties. Another major challenge is dealing with so-called 
emerging threats--the ability of hostile forces (states and terrorist 
organizations) to cause serious damage on U.S. territory even though 
they cannot defeat our armed forces.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will strive to ensure that we have a 
defense strategy and appropriate policies and plans to address the 
range of threats we face. In particular, the Assistant Secretary of 
Defense for International Security Policy plays a key role in 
addressing the challenges of emerging threats; this deserves the most 
serious attention.
                             nato expansion
    Question. The further expansion of the NATO Alliance will be an 
issue addressed at the NATO Summit in 2002. Currently, nine nations in 
central and eastern Europe--including the three Baltic nations--are 
interested in joining the Alliance.
    In your view, what criteria should the United States use in 
determining which nations should be invited to join this important 
military alliance?
    Answer. The NATO Alliance has been the key instrument in keeping 
the peace in Europe for over 50 years. A main factor in considering 
future NATO expansion is whether or not expansion will enhance U.S. and 
NATO security. It is important that the broadening of NATO membership 
preserve the Alliance's capacity for effective collective action.
    New members should share the democratic values of the Alliance and 
be prepared to make the necessary investments in the creation and 
maintenance of effective and interoperable military forces.
                            nato challenges
    Question. What are the greatest challenges that you foresee for 
NATO over the next 5 years?
    Answer. One of the key challenges will be to complete the Alliance 
transition from stationary forces to more mobile, deployable, and 
sustainable forces, and to assist new members and partners in 
developing forces that are better able to operate with NATO forces.
    Another challenge is to develop a cooperative relationship with the 
European Union on the European Security and Defense Policy that 
preserves NATO's military operational effectiveness.
    A final challenge will be to continue to evolve the relationship 
with Russia as we move away from the Cold War.
                  european security and defense policy
    Question. The European Union (EU) is pursuing a European Security 
and Defense Policy (ESDP) under which the EU will be in a position to 
launch and conduct EU-led operations in response to international 
crises, where NATO as a whole is not engaged. The United States has 
endorsed the ESDP provided it is done right.
    Do you agree with the United States position on ESDP?
    Answer. Yes, I agree with the United States' position on ESDP. As 
President Bush stated in February, ``The U.S. welcomes ESDP, intended 
to make Europe a stronger, more capable partner in deterring and 
managing crises affecting the security of the transatlantic 
community.''
    United States support for ESDP is based on the assumption that EU 
efforts will result in increased European capabilities and will not 
undermine NATO's military operational effectiveness, Allied cohesion, 
or the transatlantic link. ESDP could increased European military 
capabilities, complementing and reinforcing NATO to better balance the 
transatlantic relationship; however, ESDP could also pose a resource 
diversion risk and undermine NATO's ability to undertake collective 
defense.
    Question. In your view, what does the EU have to do to ensure that 
ESDP is ``done right''?
    Answer. The EU must be willing to ensure that ESDP preserves NATO's 
integrity as the primary instrument of transatlantic security and does 
not diminish the Alliance's military operational effectiveness.
    In addition, the EU should recognize that robust participation 
arrangements for non-EU European Allies, like Turkey, in EU crisis 
response planning and operations are essential to a successful NATO-EU 
relationship. While all 15 EU members (11 of which are also NATO 
Allies) have made a political commitments to ESDP, they must deliver on 
these commitments by providing resources to increase capabilities.
                         conflict in macedonia
    Question. For the past several months, we have witnessed fighting 
between ethnic Albanians and government forces in the Former Yugoslav 
Republic of Macedonia. NATO has agreed to offer some assistance to the 
Macedonian Government in this conflict.
    What do you believe is the proper role for the United States and 
NATO in this conflict? Should our involvement, if any, include the use 
of U.S. troops?
    Answer. It is my understanding that the Bush administration plans 
to continue to assist the Macedonians to maintain territorial 
integrity, using their own means. The administration has consistently 
condemned the violence initiated by ethnic Albanian militants and 
supported the sovereignty of Macedonia. In cooperation with NATO, the 
United States has provided intelligence support and equipment 
appropriate for the level of the conflict. The administration supports 
the multi-ethnic Macedonian ruling coalition (Government of National 
Unity). I understand that, at present, the administration does not 
foresee a reason to expand the U.S. role beyond our current assistance 
and participation in KFOR, and nor does it foresee a reason for U.S. 
forces to be involved in the Macedonian conflict.
                            missile defense
    Question. The United States has invested a significant amount of 
funding and time into the development of ground-based national missile 
defense system. The capability being developed under this program 
appears more mature than any alternative approach for countering 
strategic ballistic missiles.
    Do you believe that it is the most mature missile defense program?
    Answer. The President has established missile defense as a top 
priority. The administration's policy is to deploy ballistic missile 
defenses based on the best available options. It is my understanding 
that while the ground-based, mid-course system currently appears more 
mature, the administration intends to explore a broad range of missile 
defense technologies, pursuant to the President's guidance.
    Question. To what extent would you recommend continuing this 
effort?
    Answer. Secretary Rumsfeld has said that we have more work to do to 
determine the final form defenses might take. If confirmed, I will work 
with my colleagues in the Department to explore all of these options.
    Question. Secretary Rumsfeld has indicated his intention to stop 
differentiating between ``theater'' and ``national'' missile defense 
systems.
    Does this change in terminology in any way signify a reduction in 
the priority for programs designed primarily for tactical or 
battlefield use, such as the Theater High Altitude Area Defense, the 
Patriot PAC-3, the Airborne Laser, or the Navy Area Defense?
    Answer. No. The President has said we will deploy a system capable 
of defending the United States, U.S. forces deployed overseas, and our 
allies and friends. Whether a particular system could be a ``national'' 
system or a ``theater'' system depends on where you live and how close 
you are to the threat.
                               abm treaty
    Question. What, in your view, is the legal status of the ABM Treaty 
today?
    Answer. The Bush administration has not announced a specific view 
on the ABM treaty's legal status. The administration has treated the 
ABM Treaty as being in effect. I agree with the administration's 
approach.
    Question. Do you agree with the view that the treaty ceased to be 
legally binding when the Soviet Union dissolved?
    Answer. The Bush administration has treated the ABM as being in 
effect. I agree with the administration's approach.
    Question. The President has described a new strategic ``framework'' 
as the best alternative to the ABM Treaty in its current form. In your 
view, should such a framework be a new treaty, which would require 
Senate advice and consent, or should it be something other than a 
treaty? If not a treaty, what alternatives should the United States 
consider, and why?
    Answer. I understand that the concept of a new strategic framework 
is currently being discussed, and no decisions have been made regarding 
its form. It is my view that any such framework should provide for the 
opportunity for openness, mutual confidence, and include a real chance 
for cooperation--including in the field of missile defense.
    Question. If you do not believe that the ABM Treaty ceased to exist 
with the collapse of the Soviet Union, do you believe that the treaty 
should be modified? If yes, what types of defensive systems should any 
such modifications permit or disallow?
    Answer. As the President has said, we need to move beyond the ABM 
Treaty, which prohibits us from pursuing promising new missile defense 
technologies. I have been told that all available technologies and 
basing modes are being examined, but no decisions have been made.
    Question. If you do believe that the ABM Treaty ceased to exist as 
a matter of law when the Soviet Union collapsed, do you believe that 
Russia, nevertheless, should abide by all of the international treaties 
and obligations that were entered into by the former Soviet Union, 
including the ABM Treaty?
    Answer. Russia has declared itself to be a successor state to the 
Soviet Union for the purposes of the ABM Treaty and various other 
agreements and should act accordingly.
                            strategic forces
    Question. What role should strategic nuclear forces continue to 
play in United States policy and strategy?
    Answer. As the President has said, ``Nuclear weapons still have a 
vital role to play in our security and that of our allies.'' I believe 
that nuclear weapons remain a critical part of the overall deterrent 
capability of the United States. Nuclear weapons also serve as a means 
of upholding U.S. security commitments to our Allies, as a disincentive 
to those who would otherwise contemplate developing or acquiring their 
own weapons, and as a hedge against an uncertain future.
    Question. What criteria should the United States use in determining 
an appropriate strategic nuclear force posture for the foreseeable 
future?
    Answer. It is my understanding that these criteria will be 
developed as a part of the congressionally mandated Nuclear Posture 
Review (NPR). I am not aware of the status of the review, nor am I 
aware of what criteria will be applied in determining an appropriate 
strategic nuclear force posture for the foreseeable future.
    Question. The National Defense Authorization Act for Fiscal Year 
2001 requires the Secretary of Defense to prepare a new Nuclear Posture 
Review and a Plan for the Modernization and Sustainment of United 
States Strategic Nuclear Forces.
    If confirmed, would you ensure that these requirements are 
fulfilled in a thorough and timely manner?
    Answer. Yes.
    Question. In your view, will the United States need to resume 
underground nuclear testing in the foreseeable future in order to 
ensure the reliability, safety, and security of the United States 
strategic nuclear forces?
    Answer. If confirmed, I would support a review of how we can ensure 
the reliability and safety of our nuclear weapon stockpile.
    Question. Do you believe that Russia should comply with the terms 
and conditions of the START II Treaty?
    Answer. I regret that Russia did not unconditionally ratify START 
II as the United States did in 1996. As long as START II has not 
entered into force, Russia is not required to comply with its terms and 
conditions. However, I believe the administration would welcome Russian 
strategic force reductions to START II levels or below.
    Question. Do you support ratification of the START II Treaty or 
would you advocate moving directly to a START III Treaty?
    Answer. I understand that the Bush administration is currently 
reviewing nuclear forces and associated arms control policies as part 
of a strategic review. As the President noted in his speech on May 1, 
the objective is to reduce the number of nuclear weapons to the lowest 
level consistent with our national security requirements including our 
commitments to our allies. The President also has indicated that he 
wants to reduce nuclear forces quickly and is prepared to lead by 
example.
    Question. As part of the ongoing review of strategic nuclear 
programs and the statutorily mandated nuclear posture review will you 
commit to look at the entire nuclear enterprise as part of that review, 
including the total number of nuclear weapons, the required number of 
delivery systems, ensuring a balance between the number of weapons and 
the delivery systems, and the requirements of the nuclear weapons 
complex?
    Answer. If confirmed, I look forward to consultations with this 
committee on these matters as well as in other areas. As I noted 
earlier, I am not aware of the progress of the Nuclear Posture review. 
However, we would welcome Russian strategic force reductions to START 
II levels or below.
    Question. Will you agree to work closely with the National Nuclear 
Security Administration?
    Answer. Yes, I believe the Department of Defense and the National 
Nuclear Security Administration need to work closely together. The 
National Nuclear Security Administration has a critical role in 
supporting U.S. national security interests because of its 
responsibility to ensure the safety, security, reliability and 
effectiveness of U.S. nuclear weapons. If confirmed, I intend to work 
closely and cooperatively with Gen. John Gordon (Ret.), the 
Administrator of the National Nuclear Security Administration, and key 
members of his staff.
    Question. Do you support the Stockpile Stewardship Program?
    Answer. Ensuring the safety, reliability, and effectiveness of U.S. 
nuclear weapons is critically important to the National security 
interests of the United States. If confirmed, I would support an 
administration review of the Stockpile Stewardship Program to evaluate 
how well it has done its job to date, and how to improve it to meet 
future stockpile issues.
    Question. If you believe that the U.S. will need to resume 
underground explosive nuclear testing, what is the test that would be 
necessary, why is it necessary, what is the specific problem to be 
addressed, why are the alternatives to testing not suitable, and when 
must such a test be conducted?
    Answer. I have not been briefed on a DOD requirement for the United 
States to resume nuclear explosive testing at this time. As I said 
earlier, if confirmed, I would support a review of how we can ensure 
the reliability and safety of our nuclear weapon stockpile.
                              space policy
    Question. Do you support the 1996 National Space Policy?
    Answer. The 1996 National Space Policy continues to provide policy 
and guidance for the conduct of the our nation's space activities. I 
agree with the Commission to Assess United States National Security 
Space Management and Organization that ``the broad outline of U.S. 
national space policy is sound.'' I expect that the number, range, and 
complexity of domestic and international space issues, however, will 
continue to increase. If confirmed, I look forward to working with 
Congress and my administration colleagues to ensure that our national 
space provides a coherent approach and clear direction for advancing 
our interests in space.
    Question. Do you favor the development and deployment of weapons in 
space?
    Answer. The question of whether to develop and deploy weapons in 
space or not is one that deserves careful and thoughtful consideration. 
If confirmed, I look forward to participating in the process that will 
answer this question.
            dod's cooperative threat reduction (ctr) program
    Question. The CTR program has several key objectives that include 
(1) reducing strategic nuclear weapons; (2) improving the security and 
accounting of nuclear weapons and fissile material; (3) eliminating and 
preventing biological and chemical weapons and capabilities; and (4) 
encouraging military reductions and reforms to reduce proliferation 
threats. Currently, the Department of Defense is conducting a review of 
these programs to determine the program's future direction.
    In light of the CTR objectives, do you believe the CTR program 
should continue with its current scope or do you believe adjustments 
are necessary?
    Answer. The President supports the goals and objectives of the CTR 
program. I have been briefed that the CTR program is just one of a 
number of programs under review at this time by the administration. A 
review of all CTR program areas and their respective national security 
benefits will determine how the program can best meet its goals 
efficiently and effectively.
    Question. In your view, what do you believe should be the top three 
objectives for the CTR program?
    Answer.

        1. Accelerate reductions in Russian strategic arms.
        2. Prevent proliferation of nuclear weapons and fissile 
        material from the former Soviet Union.
        3. Elimination of SS-24 missiles in Ukraine and infrastructure 
        in Ukraine and Kazakhstan.

    Question. Secretary Rumsfeld stated in his answers to advance 
policy questions to this committee that ``the elimination of former 
Soviet strategic nuclear weapons and their delivery vehicles that the 
CTR program has funded has benefited U.S. national security.''
    What is your view of the CTR program's chemical and biological 
weapons elimination efforts?
    Answer. As the President has noted, many nations have or are 
seeking chemical and biological weapons and related weapons delivery 
technologies. The United States has an interest in ensuring that Russia 
eliminates its stockpile of chemical munitions and biological agents. 
As I noted earlier, the CTR program activities that address these 
threats are under review along with the nuclear threat reduction 
programs. The benefit to U.S. security should be the primary criterion 
being used to evaluate continued support of these programs.
    Question. Do you believe these have benefited U.S. national 
security? How?
    Answer. The elimination of former Soviet strategic nuclear weapons 
and their delivery vehicles funded by the CTR program has benefited 
U.S. national security. The United States also has an interest in 
ensuring that Russia eliminates its stockpile of chemical munitions and 
biological agents. At the same time we would not want the CTR program 
to become a means by which Russia frees resources to finance its 
military modernization programs.
    Question. Given increases in Russia's gross domestic product during 
the past year and subsequent increases in its military spending and 
arms exports, what is your view regarding Russia's ability to assume 
more of the cost share associated with CTR efforts in Russia?
    Answer. Russia should do what it can to fund the reduction of the 
weapons of mass destruction left by the Former Soviet Union. I 
understand that part of the ongoing administration review of assistance 
programs to Russia is to identify whether Russia is doing as much as it 
can to fund these reductions and to identify whether they can do more. 
The recent upturn in the economic situation in Russia will be taken 
into account in the review.
    Question. In light of Russia's increasing priority on military 
spending, what is your view regarding the fungibility of U.S. funds 
associated with threat reduction assistance?
    Answer. Investment in the CTR program and other U.S. 
nonproliferation programs to should not become a means by which Russia 
frees resources to finance its military modernization programs. I 
understand that the current review of these programs is looking at 
these questions.
    Question. Do you think the CTR program is well coordinated among 
the U.S. government agencies that engage in threat reduction efforts in 
Russia, e.g., the State Department and the Department of Energy?
    Answer. Effective coordination between among all U.S. government 
agencies is vital to the success of any multi-agency endeavor. I have 
been informed that the administration is reviewing CTR along with 
Russian assistance programs provided by other U.S. agencies to 
determine how we can best to ensure the most cost-effective means to 
achieve our objectives.
    Question. Do you believe the CTR program should pay for the 
construction of fossil fuel plants to assist with replacing the power 
produced by the planned shut down of the three remaining plutonium 
production reactors in Russia?
    Answer. Secretary Rumsfeld has previously noted that it has been 
the policy of our country to attempt to assist in seeing that nuclear 
materials in Russia are handled in a safe way so that they do not 
proliferate. The current review should assess how best to eliminate 
effectively and efficiently the Russian production of weapons-grade 
plutonium.
    Question. Will you have responsibility for policy development, 
coordination, and oversight of the CTR program, if confirmed?
    Answer. Yes, if confirmed.
    Question. Do you fully support the CTR programs?
    Answer. The elimination of former Soviet strategic nuclear weapons 
and their delivery vehicles funded by the CTR program has benefited 
U.S. national security. The United States also has an interest in 
ensuring that Russia eliminates its stockpile of chemical munitions and 
biological agents. At the same time we would not want the CTR program 
to become a means by which Russia frees resources to finance its 
military modernization programs. If confirmed, I will work to ensure 
that the CTR program meets its goals efficiently and effectively.
    Question. Do you support the active participation of the United 
States in the effort to destroy Russian chemical munitions at 
Shchuch'ye?
    Answer. I have been informed that U.S. funding for the construction 
of a chemical weapon destruction facility at Shchuch'ye is under 
review. Many complex issues are involved in this program, including 
Russian and international commitments to this program. The review will 
help inform a decision on how the administration wants to proceed with 
this and other assistance programs.
    Question. If the CTR program does not support the shutdown of the 
last three plutonium producing reactors in Russia and replace their 
power generating capacity with fossil fueled plants, how would you 
propose to stop plutonium production in Russia by 2006 or earlier? Do 
you believe that the CTR program should support the destruction of 
Russian nuclear powered submarines capable of delivering nuclear 
weapons by other than SLBMs? Do you support expansion of the CTR 
program and if so in what specific areas?
    Answer. I am not in a position to make a judgment on these issues 
at this time. If confirmed, I look forward to working with this 
committee on these and other important questions relating to the CTR 
program.
                            russia and iran
    Question. In December, 2000, Secretary Cohen met with then Russian 
Defense Minister Igor Sergeyev to discuss U.S. concern over Moscow's 
continuing arms sales and proliferation activities with Iran. While 
this meeting and subsequent State Department meetings were considered 
positive, the United States did not receive concrete assurances from 
Russia that these proliferation activities would cease. In fact, 
subsequent actions by Russia indicate that Russia intends to continue 
and increase its arms sales and nuclear technology efforts with Iran, 
despite U.S. concerns.
    As Assistant Secretary of Defense for International Security 
Policy, what policy options would you propose to address the continued 
proliferation activities of Russia regarding Iran?
    Answer. If confirmed, I would look at the full range of available 
options. I would underscore for Russian policymakers that this is a new 
administration and that positive, concrete steps on their part to 
address our security and stability concerns in this area can provide a 
basis for a constructive bilateral relationship.
    Question. Would you propose limiting or prohibiting Cooperative 
Threat Reduction assistance to Russia until Russia ceases its 
proliferation activities with Iran?
    Answer. I have been informed that the administration is currently 
reviewing its options for encouraging Russia to cease its proliferation 
activities with Iran, including possible steps in the event that Russia 
does not cease such cooperation. If confirmed, I would expect to 
participate actively in that review.
         comprehensive test ban treaty/nuclear test monitoring
    Question. What do you believe the policy should be within the 
Department of Defense regarding DOD Programs that support the 
Comprehensive Test Ban Treaty?
    Answer. Secretary Rumsfeld has said that he has two concerns with 
the Comprehensive Test Ban Treaty (CTBT): the risks to the reliability 
and safety of our nuclear weapon stockpile and the difficulty of 
verification. Because the CTBT has not been ratified by the United 
States or entered into force, the United States is under no obligation 
to implement it. If confirmed, I would strongly support a review of all 
planned DOD activities associated with the CTBT, to determine whether 
they are useful on their own merits.
                   arms control technology priorities
    Question. The Department of Defense plays the lead role in 
developing and implementing arms control technology in support of arms 
control agreements.
    What do you believe should be the key capabilities that the 
Department should pursue and develop? What challenges do you believe 
exist in developing these key capabilities?
    Answer. I am not in a position to make a judgment on these issues 
at this time. If confirmed, I look forward to working with this 
committee on these and other important questions relating to arms 
control technologies and capabilities.
                  biological weapons convention (bwc)
    Question. The Biological Weapons Convention (BWC) prohibits the 
stockpiling of biological materials in quantities that are not 
justifiable for solely peaceful purposes. Currently, the parties to the 
Convention are discussing details of a new protocol that consists of a 
legally binding regime for verification that goes beyond confidence 
building measures. Critics of these discussions believe that such 
verification measures are impossible due to limitations in the 
technology to enforce these measures.
    What is your view of the Convention and do you believe it is 
possible to establish and verify measures beyond confidence building?
    Answer. The Biological Weapons Convention establishes an important 
norm against the development, production, acquisition and stockpiling 
of biological weapons. However, given the nature of biological weapons 
and biotechnology, the Convention is inherently unverifiable.
                       export administration act
    Question. The Export Administration Act of 2001 (S.149) was 
introduced by Senators Enzi and Gramm, and reported out of Banking 
Committee subsequently on a 19-1 vote on March 22, 2001. The 
administration has released a Statement of Administration Position 
indicating its support for the bill in its current form.
    Do you support the Export Administration Act of 2001 in its current 
form? If not, what changes do you believe are needed to the measure?
    Answer. I support the use of export controls to protect U.S. 
national security. The administration has indicated its support for the 
bill in its current form. I have not yet been briefed on the bill, but 
I note that it contains several provisions that will improve the 
process for controlling exports of dual-use goods and technologies. It 
also has other provisions that will help transition the current system-
based cold war policies into a more modern system that focuses on WMD, 
end-user and end-use controls. As a result, the bill would allow the 
administration to meet national security and foreign policy objectives 
without impairing U.S. companies' ability to compete in the world 
marketplace.
    Question. Do you believe that the State Department or the Commerce 
Department should be the lead agency for licensing satellite exports?
    Answer. My own views on this question are not yet fully formed. I 
believe Congress and the administration must be deliberate in 
contemplating any change in export controls. Any review must be 
undertaken in a manner that seeks to preserve fundamental national 
security interests. I believe that the administration will be examining 
this issue carefully (including any statutory or regulatory changes 
that might be required), and will consult closely with Congress as this 
review proceeds.
    Question. Do you believe that additional steps need to be taken to 
streamline the export control process?
    Answer. I understand that the administration will be examining 
whether further streamlining is necessary.
    Question. Do you support the Defense Capabilities Initiative (DCI)?
    Answer. I support the goals and objectives of the DCI, but I have 
not yet been fully briefed on its implementation or the extent to which 
it has improved our Allies abilities to meet the needs of NATO in the 
21st century.
                            the oslo accords
    Question. What is your view of the Oslo Accords? Do you believe 
that Israel should abrogate any or all of the Oslo agreements, or do 
you believe that Israel and the Palestinian Authority should honor the 
agreements arrived at to date, and that the peace process should 
continue?
    Answer. I have not fully formed a view on the Oslo Accords. I note 
that this issue will not be in the area of responsibility of the 
position for which I am seeking confirmation.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for International Security Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                              north korea
    1. Senator Levin. During your nomination hearing, I asked you for 
your view as to whether you believe the United States should continue 
to support the Agreed Framework. You responded to the effect that the 
issue was still being considered by the administration. I then advised 
you that, during his visit to South Korea on May 10th, Deputy Secretary 
of State Armitage delivered a letter from President Bush for President 
Kim Dae Jung in which President Bush stated that we expected, among the 
things our policy review would show that we would continue to support 
the Agreed Framework. Subsequently, on May 16th, State Department 
spokesman, Richard Boucher, stated that ``Our position has always been 
that we intend to abide by the Agreed Framework and we expect them to 
abide by the Agreed Framework. . . .''
    Do you believe that we should continue to abide by the Agreed 
Framework?
    Dr. Crouch. Yes, I support the administration's recent announcement 
on abiding by the Agreed Framework. The administration has decided to 
undertake discussions with North Korea on a broad agenda that includes 
improved implementation of the Agreed Framework. I believe that the 
international situation has changed greatly since 1994 when I first 
wrote about the Agreed Framework. The June 2000 inter-Korean summit is 
one example of this change. In coordination with our Asian allies, the 
administration will hold discussions with North Korea aimed at reaching 
verifiable arrangements that enhance our national security and that of 
our allies.

    2. Senator Levin. At your hearing, I asked about your article 
published in 1995 about North Korea, in which you advocated presenting 
North Korea with an ultimatum and bombing North Korea if they did not 
acquiesce to our demands. At the hearing, you suggested that you had 
done nothing different than what then-Defense Secretary Perry had done 
to consider the option of offensive military action.
    As I see it, there is a considerable difference between your 
position and that of Secretary Perry at the time. In Dr. Perry's case, 
as he told this committee on January 26, 1995, he considered--but 
rejected--the option of taking military action to destroy the one 
reactor before it could be refueled and its spent fuel reprocessed. 
That was a matter of prudent military planning. Secretary Perry never 
advocated a pre-emptive attack against any or all of North Korea's 
nuclear facilities, nor giving North Korea an ultimatum.
    In your case, you advocated the position that we should issue North 
Korea an ultimatum to get rid of its nuclear complex and to ``authorize 
the destruction of as much of this complex as possible,'' if they did 
not take ``positive, visible'' steps to do so. According to what he 
told this committee, Secretary Perry did not advocate that position; he 
looked at the various scenarios and options and recommended to the 
President a course of action that he thought had the best chance of 
reducing the North Korean nuclear threat and preserving U.S. security, 
which was not to authorize a pre-emptive strike.
    Do you agree that there is a difference between the Secretary of 
Defense considering--and rejecting--a number of options, including the 
possibility of military action against the Yongbyon reactor, and your 
advocating the destruction of the North Korean nuclear complex if North 
Korea did not accept an ultimatum to do so itself?
    You mentioned at your hearing that you believed Secretary Perry 
testified to the Senate Foreign Relations Committee on North Korea and 
advocated a position similar to yours. If he did so, it would be very 
different from what he told the Armed Services Committee. Can you 
provide a record of Secretary Perry's testimony to the Foreign 
Relations Committee?
    Dr. Crouch. Mr. Chairman, I stated in my testimony that ``even 
Secretary Perry, who, I believe testified before the Senate Foreign 
Relations Committee that he was considering options to do just this is 
evidence of the serious nature of this.'' In testimony before the 
Senate Foreign Relations Committee on January 24, 1995, he stated:

        What were the alternatives then faced by the United States? 
        Obviously, there was an alternative, a theoretical alternative, 
        of going in and taking out the nuclear reactor. We considered 
        that option. We looked very carefully at what would be required 
        to do that. I can tell you flatly that we know how to do that, 
        but on consideration, I did not recommend that course of action 
        to the President--and careful consideration did not recommend 
        that course of action.

    I agree with you that there is a difference between having 
considered options and having authorized them. My intervention in the 
hearing in which I paraphrased Secretary Perry's testimony was in 
response to questions about the reasonableness of my recommendations. I 
was pointing out that the sitting Secretary of Defense was concerned 
enough about the situation to have planned for, and considered, options 
to do what I recommended doing if the North Koreans did not respond to 
demands to open up their nuclear facilities to international 
inspection. He went on in his testimony to state, ``there is no 
security problem we are facing more important than this one in which 
the alternatives are grimmer.'' My intervention was not to portray 
Secretary Perry's views and mine as identical, but simply to 
demonstrate that in that time and in those circumstances, others were 
considering the same kinds of military actions that my article 
discussed.
    In December 1993, Representative John Murtha suggested that if we 
know the location of the North Korean weapons facility, ``we should 
consider military action.'' He went on to state:

        You have to weigh what the North Koreans would do, because 
        obviously it could precipitate an invasion. My feeling is I 
        would be willing to take that chance, because to me it is just 
        unthinkable to have a regime like North Korea with a nuclear 
        weapon of any kind. It would be like Iraq having a nuclear 
        weapon.

    In June 1994 Senator Robert Dole stated in response to questioning 
about the crisis: ``I would not rule out the military option. I'd go 
ahead and start building up in that part of the world.'' This echoes 
what Secretary Perry said at the time, ``I said we will not have a 
preemptive military strike at this time and under these circumstances. 
I am not ruling that option out in the future.''
    Finally, former National Security Advisor Brent Scowcroft and 
former Under Secretary of State Arnold Kanter stated in a June, 1994 
Washington Post editorial: ``We should tell North Korea that it either 
must permit continuous, unfettered IAEA monitoring to confirm that no 
further reprocessing is taking place, or we will remove its capacity to 
reprocess.'' They acknowledged that this course of action is ``not 
risk-free'' and recommended a build-up of U.S. forces similar to what I 
recommended in my article. They concluded by stating: ``Pyongyang must 
be made to understand that if war is unavoidable, we would rather fight 
it sooner than later, when North Korea might have a sizable nuclear 
arsenal.'' This judgment, Mr. Chairman, was a central factor in my 
making the recommendations in my article.
    Mr. Chairman, I certainly acknowledge a great difference between 
considering options and executing them. I also stated in my testimony 
that it was possible that ``if different facts had come to light that I 
was not aware of because I was out of government,'' I may have made 
different recommendations. I agree with Secretary Perry that we were 
facing grim alternatives during this time. I quote the thoughts of 
others during this crisis not to convince you or the committee that my 
recommendations were right, or to imply that those quoted held 
identical views to mine, but simply to demonstrate that similar ideas 
were considered at the time by well respected authorities.
    Special Note: Mr. Chairman, I would like to take this opportunity 
to respond to a concern you raised during my hearing about the use of 
the word ``collude'' in my 1995 article on North Korea. I have reread 
that article, and I can see that was a poor choice of words on my part. 
What I was trying to convey in that paragraph was that the Clinton 
administration, the IAEA, and the North Koreans had very different 
reasons for joining together in the Agreed Framework regime, though the 
fact of agreement was widely taken as a sign of true commonality of 
purpose. I was not trying to say that U.S. support for the Agreed 
Framework involved impropriety. I should not have used a word that can 
be taken as implying that. I believe that reasonable people can differ 
on the value of the Agreed Framework, and I also recognize that since 
the hearing, the President has announced the administration's support 
for moving forward with its implementation. If confirmed, I would 
wholeheartedly support the President in his efforts to implement that 
agreement in ways that enhance its prospects for success.

                      chemical weapons convention
    3. Senator Levin. In March 1996 you testified against ratification 
of the Chemical Weapons Convention before the Senate Foreign Relations 
Committee. You said in your testimony: ``I cannot imagine an agreement 
less suited to our security needs in the post-Cold War security 
environment [than the CWC].''
    You also said that with the CWC, the United States is abandoning 
``one of the most effective deterrents to chemical use against itself 
and its allies: the right to an extant and mature offensive chemical 
weapons program.''
    You said that the CWC would weaken deterrence ``by eliminating the 
ability of the United States to respond in kind to chemical attack,'' 
and the result would be ``that American and allied soldiers and 
citizens are more, not less, likely to be attacked with chemical 
weapons.''
    Are these still your views? Do you believe that the CWC has 
weakened deterrence and increased the likelihood of a chemical weapons 
attack on American soldiers?
    Dr. Crouch. While my earlier statements focused on my belief in the 
deterrent value of response in kind, I also believe there is deterrent 
value in robust defenses, including chemical defenses, that will deny 
an aggressor any advantages in first use of chemical weapons. The 
Senate substantially improved the CWC during the ratification process. 
For example, the Senate endorsed an enhanced and robust chemical and 
biological defense program in Ratification Resolution #11. The 
Department of Defense has similarly made a commitment to establishing 
robust chemical defenses that have sent the clear message to states 
that might contemplate use of CW that DOD is prepared for combat in a 
CW environment. I believe that this has diminished the likelihood of 
attack on American soldiers.
    The CWC is now the law of the land. If confirmed, I see it as one 
of my most important responsibilities to ensure that it is implemented 
and enforced as effectively as possible. If confirmed, I would look 
forward to working with the committee to improve further our 
capabilities to deter and defend our forces against CW attack in the 
absence of a response in kind.

    4. Senator Levin. If confirmed as Assistant Secretary of Defense 
for International Security Policy, will you advocate that the U.S. 
withdraw from the Chemical Weapons Convention?
    Under what circumstances would you advocate withdrawing from the 
treaty?
    Dr. Crouch. I would not advocate a withdrawal from the Chemical 
Weapons Convention and cannot foresee the circumstances under which I 
would do so.

    5. Senator Levin. Do you believe the U.S. should have an offensive 
chemical weapons capability? Would you advocate withdrawing from the 
CWC to develop such a capability?
    Dr. Crouch. I would not advocate a withdrawal ``from the CWC to 
develop such a capability'' and cannot foresee the circumstances under 
which I would do so.

                            nuclear weapons
    6. Senator Levin. In an article in Global Affairs in 1993, you 
wrote that ``in order to neutralize the effects of nuclear, chemical, 
or biological weapons that some future Saddam might put on a ballistic 
missile, our next generation, long-range Patriots might have to carry 
very low-yield nuclear weapons.''
    Do you favor equipping missile defense interceptors with nuclear 
warheads?
    Dr. Crouch. No, I do not think the United States has such a 
requirement. Since 1993, the United States has demonstrated many hit-
to-kill successes. For example, the Ballistic Missile Defense 
Organization has conducted eight successful intercepts for advanced 
PATRIOT (PAC-3), two for Theater High Altitude Area Defense (THAAD), 
and one for the Ground-Based Interceptor. I believe the most promising 
solution to weapons of mass destruction threats may be to develop hit-
to-kill technologies in combination with boost-phase interception that 
could neutralize these threats.

                               abm treaty
    7. Senator Levin. If confirmed as the Assistant Secretary of 
Defense for International Security Policy, you will be one of the main 
Defense Department policy makers involved in any negotiations to modify 
the ABM Treaty or to replace it with some new strategic framework.
    In your view, how should these negotiations proceed? Do you believe 
that the ABM Treaty can be modified to allow the deployment of limited 
missile defenses?
    Dr. Crouch. The President has said the ABM Treaty should be 
replaced with a new framework that reflects a break from Cold War 
thinking and facilitates development of a new, cooperative relationship 
between the United States and Russia. Quite properly, in my view, the 
administration is consulting with the Russians, with Allies, and with 
Congress on the concept of such a framework, which should provide the 
opportunity for openness, mutual confidence, and a real chance for 
cooperation, including in the area of missile defense. The exact nature 
of the new framework and whether it includes agreements, parallel or 
unilateral actions, or a combination thereof, is something that is 
being developed. As Secretary Rumsfeld is quoted in the June 12 edition 
of the New York Times, ``We may end up signing something that is not a 
treaty, but it's an agreement or it's an understanding or it's a record 
of discussion.'' The President is looking at a wide range of ideas for 
the framework, and whether amendments will be part of it remains under 
consideration. If confirmed, I look forward to participating in these 
efforts.

                             nato expansion
    8. Senator Levin. In your answer to a pre-hearing policy question, 
you stated that ``A main factor in considering future NATO expansion is 
whether or not expansion will enhance U.S. and NATO security. It is 
important that the broadening of NATO membership preserve the 
Alliance's capacity for effective collective action.''
    Do you believe that the enlargement of the Alliance to include 
Poland, Hungary and the Czech Republic enhanced U.S. and NATO security?
    Do you believe that the United States' and NATO's relationship with 
Russia should be a consideration in the NATO enlargement decision?
    Dr. Crouch. Yes, the accession of Poland, Hungary, and the Czech 
Republic has enhanced U.S. and NATO security. As a concrete example, in 
October 2000 the Congressional Budget Office judged that all three of 
the new allies are making roughly proportional contributions to the 
ongoing missions in Bosnia and Kosovo compared with other long-standing 
NATO members with populations of similar size. This is quite an 
accomplishment for countries that are in the process of restructuring 
and modernizing their military forces from Warsaw Pact design to NATO 
requirements, which the United States has always expected to require 
many years.
    As Dr. Rice, the Assistant to the President for National Security 
Affairs, said on June 6, ``the United States believes strongly that 
enlargement needs to continue. It is only natural that enlargement will 
continue, that we believe strongly that there should be no red lines, 
geographic or historic, that eliminate any country as a fait accompli, 
and that we believe that there can be no veto by any country over NATO 
enlargement.''
    While Russia will not be allowed to veto a NATO decision on which 
additional countries are admitted to NATO, I believe that the U.S. and 
NATO's relationship with Russia should and will be a consideration in 
the NATO enlargement decision.

                                  nato
    9. Senator Levin. NATO's 50th anniversary Washington Summit, the 
Alliance launched the Defense Capabilities Initiative which is designed 
to improve NATO's core capabilities in five areas: mobility and 
deployability, sustainability and logistics, effective engagement, 
survivability, and consultation, command and control. Secretary General 
Lord Robertson, in reviewing the progress on the Defense Capabilities 
Initiative last year said that ``governments will have to spend 
smarter, and where necessary, they will have to spend more.''
    In a speech in Barcelona on May 10th, U.S. Ambassador to NATO Sandy 
Vershbow, stated that ``Unfortunately, 2 years after the Washington 
Summit, the reality is that rhetoric has far outpaced action when it 
comes to capabilities.''
    Last Wednesday, the London-based think tank, International 
Institute for Strategic Studies, issued its annual Strategic Survey, 
which found that ``European military forces are still in many respects 
configured for the Cold War era. Rising personnel costs and a wave of 
systems acquisitions initiated long ago, as well as the costs of 
ongoing operations, have left little room for investment in R&D an 
procurement to satisfy newly identified requirements. . . . European 
defense spending in real terms continues to fall at a rate of nearly 5 
percent every year.''
    If confirmed, how would you plan to encourage our European allies 
to spend more wisely and, if necessary, spend more so as to improve 
NATO's core competencies?
    Dr. Crouch. The United States, like all Allies, continues to 
support strongly the Defense Capabilities Initiative (DCI). The 
Alliance is aware of its shortfalls, and all nations are working to 
improve national, and Alliance capabilities. While I am sympathetic to 
the budgetary concerns of our Allies--all nations, including the United 
States, have budgetary constraints--I believe they must do more to 
ensure adequate spending and appropriate priorities for defense.
    If confirmed, I intend to continue DCI work at NATO and in 
bilateral meetings to press Allies to move forward on their defense 
restructuring plans and improved spending levels. Many Allies have 
chosen to begin to work cooperatively to meet capability shortfalls. I 
understand the United States fully supports these efforts and has 
offered to assist these multinational groups. I also understand the 
United States is chairing a multinational group on combat 
identification to determine whether there is scope for cooperation. The 
United States is committed to working with our Allies to build defense 
capabilities and remains committed to improving transatlantic defense 
industrial cooperation, to include meaningful cooperation in co-
development and technology sharing. If confirmed, I look forward to 
exploring with the committee ways we can advance these goals.

                               macedonia
    10. Senator Levin. For the past several months, we have witnessed 
fighting between ethnic Albanians and government forces in the Former 
Yugoslav Republic of Macedonia. NATO has agreed to offer some 
assistance to the Macedonian Government in this conflict.
    What do you believe is the proper role for the United States and 
NATO in this conflict? Should our involvement, if any, include the use 
of U.S. troops?
    Dr. Crouch. I believe that the administration's current level of 
support to the forces of the Former Yugoslav Republic of Macedonia is 
the appropriate level of support at this time. I do believe it is 
important that the United States and NATO continue to monitor the 
situation closely. I do not think that there is a requirement for U.S. 
ground combat forces. I am not aware of any facts or any circumstances 
on the ground that would suggest a role different from the current role 
of U.S. peacekeeping forces in the region.

                            weapons in space
    11. Senator Levin. Do you favor the development and deployment of 
weapons in space?
    Dr. Crouch. The security and well-being of the United States, our 
allies, and friends depend on our ability to operate in space. Our 
increasing dependence and the vulnerability it creates, however, 
require us to have the means to deter and dissuade threats to our 
national interests in space. In this regard, I strongly support the 
1996 National Space Policy, which provides that ``consistent with 
treaty obligations, the United States will develop, operate, and 
maintain space control capabilities to ensure freedom of action in 
space and, if directed, deny such freedom of action to adversaries. 
These capabilities may also be enhanced by diplomatic, legal or 
military measures to preclude an adversary's hostile use of space 
systems and services.'' A broad range of military capabilities may be 
required to implement this policy. I understand the administration has 
included in its on-going strategic review the range of capabilities 
necessary to implement this policy, and I support this effort.
                                 ______
                                 
               Question Submitted by Senator Max Cleland

                              north korea
    12. Senator Cleland. In a 1995 article, you proposed using air 
strikes to destroy the North Korean nuclear facilities in the absence 
of evidence that the North Koreans dismantled these facilities in 
accordance with a specified deadline. In testimony at the 5 June 
hearing, you stated that you stood by that recommendation given the 
situation as it was then, but would not recommend the same approach now 
given the improvements that have occurred in relations on the Korean 
peninsula.
    Explain how you could conceivably have thought air strikes against 
an unstable regime with a large chemical weapon inventory and the most 
offensively postured military in the world would have accomplished 
objectives consistent with U.S. interests in 1995. What was the 
likelihood, in your 1995 calculus, that the North Koreans would have 
responded in some military fashion, such as with a chemical Scud attack 
against a population center? What was the contingency plan, in your 
mind, to deal with this possibility?
    Dr. Crouch. When I wrote my article in 1995, the situation in Korea 
was as Secretary Perry described it: ``There is no security problem we 
are facing more important than this one in which the alternatives are 
grimmer.'' As I noted in my answer to Question 25, I was not alone in 
the midst of that situation in considering the airstrike option--many 
respected defense authorities, both inside and outside the government, 
were also considering it. From my vantage point--outside the government 
and without access to the full range of information available to those 
in authority--the airstrike option seemed necessary to achieve our 
objective and, along with the other steps I was recommending, to 
mitigate damage in the event deterrence failed.
    I believe, and this belief was shared by responsible experts, that 
in any event there was a worrisome possibility of North Korean 
aggression against South Korea and U.S. forces stationed there in the 
mid-1990s. I recommended in my 1995 article that a series of steps be 
taken to bolster deterrence on the Korean peninsula. These included 
strengthening the U.S. force posture in various ways, including 
developing and deploying with South Korea and Japan a missile defense 
capable of countering the North Korean missile arsenal. All of these 
measures were designed to strengthen deterrence and, in the contingency 
that might follow the failure of deterrence, to minimize the impact of 
a North Korean use of weapons of mass destruction.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                                  nato
    13. Senator Thurmond. Press accounts of Secretary Rumsfeld's 
strategic review indicate that the Secretary will recommend a shift of 
focus and forces from Europe to the Pacific.
    In your personal opinion, what impact will such a shift have on our 
role within NATO?
    Dr. Crouch. The United States has a vital interest, with our 
European and Canadian Allies, in NATO. It will remain the foundation of 
America's security commitment to its Allies. In my view, increased U.S. 
attention to the security situation, for example in the Persian Gulf or 
Korea, in no way implies any American intention to de-emphasize Europe. 
I do not believe this is a zero-sum game.

                  european security and defense policy
    14. Senator Thurmond. A significant concern with the European 
Security and Defense Policy is that it will divert resources from the 
modernization and support of the European forces committed to NATO.
    In your judgement, is this a valid concern? If not, why not?
    Dr. Crouch. The President and his administration support the 
European Security and Defense Policy as long as it adds capabilities to 
NATO, embeds EU planning within NATO, and ensures transparency and a 
right of first refusal for NATO. There is no reason why NATO and the 
European Union (EU) cannot work cooperatively to build capabilities, 
maintain operational military effectiveness, and avoid squandering 
scarce defense resources. Much hard work lies ahead to ensure we make 
progress on these three fronts--and avoid an unnecessary and 
destructive competition from arising between the two pillars of our 
transatlantic community.
    The EU's Headline Goal and NATO's Defense Capabilities Initiative 
have many points of intersection. Both call for increases in strategic 
mobility and sustainability. The EU's catalogue of forces and NATO's 
force goals both envision the need for increased capabilities in the 
areas of deployable and secure communications, suppression of enemy air 
defenses, aerial refueling, biological defense, and theater missile 
defense. Because eleven of the members of the EU are also members of 
NATO, there is a wonderful opportunity for European nations to increase 
these capabilities and take credit for the improvement in both NATO and 
the EU. Each of these European nations has only one pool of forces to 
draw from and only one budget to support their aspirations for and 
promises to NATO and the EU.

                                 bosnia
    15. Senator Thurmond. I, like many of my colleagues, am concerned 
about the continuing commitment of our forces to Bosnia. I believe now 
is the time to start planning for the complete withdrawal of our forces 
from that specific region.
    What in your judgment are the conditions that must be met before 
the United States can withdraw its forces from Bosnia?
    Dr. Crouch. The Bosnia commitment is an Alliance effort: U.S. 
policy is that since the allies went in together, they will leave 
together. When withdrawal may actually be appropriate will depend on 
judgments to be made about whether it would leave intact the essential 
achievements of the Dayton Accords, namely cessation of the war and 
preservation of regional stability. The mission has evolved from a 
primarily military mission into one that is more a matter of civil 
implementation. Overall force levels are reviewed every 6 months in the 
Alliance.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                            china mil-to-mil
    16. Senator Smith. I'm directing this comment to you because I'm 
sure you're aware of controversy over the U.S./China military-to-
military exchanges--I authored the fiscal year 2000 DOD restrictions on 
these exchanges.
    I have requested a briefing on the department's perspective of the 
value of these contacts, the lack of reciprocity on the part of the 
Chinese, and to discuss how we might improve the program--if it is 
going to continue--so that it meets some clear objectives and is not 
divulging militarily useful information to the Chinese military.
    Can you comment on the administration's change in the mil-to-mil 
program--how the new ``case by case'' review differ from the previous 
program under the Clinton administration?
    Specifically, are we still trying to have the PRC observe at the 
COBRA GOLD exercises, as CINCPAC Admiral Blair stated?
    Mr. Feith and Dr. Crouch. We have been advised that the Department 
of Defense began in January a series of broad policy reviews. One of 
the areas to be examined in detail was the program for military-to-
military exchanges with the People's Republic of China. The first step 
in this process was to undertake a serious review of the schedule of 
military-to-military events with the PLA planned for 2001.
    As we understand it, since the April 1 EP-3 incident over the South 
China Sea, business with China has not been as usual. Steps have been 
taken to limit the travel of DOD personnel to China and to limit 
contact with PRC officials, especially PLA personnel. The military-to-
military program has been conducted on a case-by-case basis, with 
special emphasis on (1) benefit to U.S. interests and (2) reciprocity.
    The PRC, along with other countries in the region, was invited to 
observe the command post portion of EXERCISE COBRA GOLD. The PRC, 
however, declined the invitation.

                             taiwan policy
    17. Senator Smith. I would also like to raise with you in the 
future the issue of closer ties between U.S. and Taiwan military 
forces. I believe we should lift the petty and counter-productive 
restrictions on U.S. military officer travel to Taiwan and allow more 
U.S. military personnel to train Taiwanese military personnel in 
Taiwan.
    We should also be establishing direct and secure communications 
between Taiwan and the U.S. military, linking PACOM and Taiwan's 
defense ministry.
    I urge you to undertake a review of U.S. military policy towards 
Taiwan. Not taking these steps could be disastrous in the event of 
another crisis in the straits.
    Mr. Feith and Dr. Crouch. It is our understanding that the 
Department of Defense is reviewing a range of issues associated with 
our defense relationship with Taiwan, including enhancing our training 
programs. If confirmed, we would give serious consideration to the 
issue of U.S. military visitors to Taiwan.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                       nuclear cities initiative
    18. Senator Santorum. Created in 1998, the Nuclear Cities 
Initiative (NCI) is a nonproliferation program designed to create 
sustainable job opportunities for weapons scientists in Russia's closed 
nuclear cities and to help Russia accelerate the downsizing of its 
nuclear weapons complex. From fiscal year 1999 through December 2000, 
the expenditures for the NCI totaled about $15.9 million. According to 
a recent report prepared by the General Accounting Office, of that 
amount, about $11.2 million (or 70 percent) had been spent in the 
United States by the national laboratories, and about $4.7 million (or 
30 percent) had been spent for projects and activities in Russia.
    About 50 percent of the NCI projects have been established to fund 
a variety of activities in the nuclear cities. According to DOE, while 
these projects may increase the potential for job creation in the 
closed cities, they are not designed to directly lead to new jobs for 
weapons scientists. DOE officials believe that community development 
projects are needed to improve the economic and social conditions in 
the cities in order to make them more attractive to commercial 
investors.
    Do you believe that the level of funds being invested in Russia is 
adequate given the goal of the program to create sustainable jobs in 
Russia? What is your opinion of NCI investments in ``community 
development'' projects?
    Dr. Crouch. The Nuclear Cities Initiative is not a Department of 
Defense funded or administered program. I understand that the 
administration is conducting an interagency review of this program, and 
if I am confirmed, I will participate in the interagency process that 
is intended to provide general guidance on these programs. At this 
point, I have not been briefed on the NCI. If confirmed, I will look 
into this program early on, and I look forward to working with this 
committee in the area of aid to Russia.

                initiatives for proliferation prevention
    19. Senator Santorum. Another program, the Initiatives for 
Proliferation Prevention (IPP), is also administered by DOE. IPP seeks 
to employ weapons scientists in several countries of the former Soviet 
Union, including Russia and the nuclear cities. IPP is designed to 
commercialize technologies that utilize the expertise of the scientists 
who work at the various nuclear weapons institutes. IPP requires that 
all proposed projects have an industry partner to help ensure the 
commercial viability of each project.
    The IPP program relies on a nonprofit association of U.S. companies 
and universities to help evaluate and develop commercial projects. The 
NCI program did not require that projects have industry partners or 
demonstrate commercial viability until January 2001. GAO speculates 
that since the NCI and IPP programs share a common goal, combining the 
two programs could alleviate many of the concerns the entity has with 
the implementation of the NCI program.
    Do you concur with GAO's observation on commonalities existing 
between the NCI and IPP programs? Would you support a review that 
looked at consolidating these two programs?
    Dr. Crouch. The Initiatives for Proliferation Prevention program is 
not a Department of Defense funded or administered program. As with its 
Nuclear Cities Initiative, I understand that the administration is 
conducting an interagency review of this program. If confirmed, I will 
participate in the interagency process that is intended to provide 
general guidance on these programs and will look into the question of 
consolidating the programs. Like the NCI, I look forward to getting 
briefed on the IPP and working with this committee on ensuring that 
U.S. aid to Russia is efficiently administered.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                                  nato
    20. Senator Collins. You mentioned in one of your responses to the 
advance questions, one of the major challenges that you will face will 
be developing a cooperative relationship with the European Union on the 
European Security Defense Policy that preserves NATO's military 
operational effectiveness. How do you propose that we preserve NATO's 
military operational effectiveness, and how do you propose the U.S. 
coordinate a united position with the other agencies involved in this 
effort, i.e. the Department of State?
    Dr. Crouch. For the United States, the maintenance of military 
operational effectiveness is the touchstone for assessing all proposals 
for European defense. As I stated in response to Question 60, the 
President and his administration support the European Security and 
Defense Policy as long as it adds capabilities to NATO, embeds EU 
planning within NATO, and ensures transparency and a right of first 
refusal for NATO. There is no reason why NATO and the EU cannot work 
cooperatively to build capabilities, maintain operational military 
effectiveness, and avoid squandering scare defense resources. In 
implementing the President's policy with regard to ESDP, I believe it 
will be important to ensure that NATO's military operational 
effectiveness is preserved. If confirmed, I would get briefed on all 
the relevant facts and considerations and would look forward to working 
with others in the administration, including the Department of State, 
and with this committee in determining the best course of action with 
regard to ESDP and preserving NATO's capabilities.
                                 ______
                                 
    [The nomination reference of Dr. Jack Dyer Crouch II, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 7, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. Jack Dyer Crouch II, of Missouri, to be an Assistant Secretary 
of Defense, vice Franklin D. Kramer.
                                 ______
                                 
    [The biographical sketch of Dr. Jack Dyer Crouch II, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. J.D. Crouch II
    J.D. Crouch is Associate Professor of Defense & Strategic Studies 
at Southwest Missouri State University in Springfield, MO. From 1990 to 
1992 he was Principal Deputy Assistant Secretary of Defense for 
International Security Policy in the first Bush administration. From 
1986 to 1990 he was the Military Legislative Assistant to Senator 
Malcolm Wallop (R-WY) and served as his staff designee on the Senate 
Armed Services Committee. From 1984 to 1986 he worked for the Assistant 
Director for Strategic Programs in the U.S. Arms Control & Disarmament 
Agency and was an Advisor to the U.S. Delegation on Nuclear & Space 
Arms Talks with the former Soviet Union.
    He is also co-founder of PalmGear.com, a leading internet company. 
As part of his public service through the university, Dr. Crouch has 
served as a Reserve Deputy Sheriff in Christian County, MO and member 
of a Multi-County Special Response Team from 1993 to present. He is on 
the Board of Editors of Comparative Strategy and is a member of the 
Board of Advisors of the Center for Security Policy.
    Dr. Crouch holds a Ph.D. in International Relations from the 
University of Southern California. He has written on a wide range of 
defense and foreign policy issues. He lives with his wife, Kristin 
Crouch, and his two children, Lara and Jake, in Nixa, MO.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Jack Dyer 
Crouch II, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jack Dyer Crouch, II, aka J.D. Crouch.

    2. Position to which nominated:
    Assistant Secretary of Defense for International Security Policy.

    3. Date of nomination:
    May 7, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 1, 1958; Santa Monica, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Kristin Crouch, Maiden Name: Karnbrock.

    7. Names and ages of children:
    Lara, 12; Jake, 9.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    University of Southern California, 09/81-08/87, Ph.D. 08/87.
    University of Southern California, 06/80-08/81, M.A. 08/81.
    University of Southern California, 06/76-06/80, B.A. 06/80.
    Palm Springs High School, 09/73-06/76, Diploma 06/76.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Associate Professor, Southwest Missouri State University, 
Springfield, MO, 08/92-present.
    Principal Deputy Assistant Secretary of Defense (ISP), DOD, 
Washington, DC., 02/90-07/92.
    Legislative Assistant, Senator Malcolm Wallop, Washington, DC., 03/
86-02/90.
    Foreign Affairs Officer, ACDA, Washington, DC., 08/85-03/86.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Deputy Sheriff; Christian County Sheriffs Department, Ozark, MO, 
12/93-present.
    Consultant to OSD, 07/92-01/93.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    Consultant to MobilePCGear H.Q., 1997-present.
    Board of Directors, MobilePCGear H.Q., 1999-present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Life Member, National Rifle Association, 1992-present; Member, 
Academics for the Second Amendment, 1996-present; Member, National 
Policy Council on U.S. Leadership in a Changing World, 1995-96; Member, 
Board of Editors, Comparative Strategy, 1993-present; Member, Board of 
Advisors, Center for Security Policy, 1992-present; President, 
Christian County Deputy Sheriffs Association, 2001-present; Member, 
Missouri Deputy Sheriffs Association, 1994-present; Member, National 
Association of Scholars (approx. 1994-1996); Reserve Deputy Sheriff, 
Christian County, MO, 1993-present; Member, Board of Advisors, 
Missourians for Personal Safety, 1998-99; Member, National Tactical 
Officers Association, 1999-present; Alpha Tau Omega fraternity, 1978-
present; Skull & Dagger Honor Society, University of Southern 
California, 1980-present; Member, Multi-County Jurisdictional Special 
Response Team, 1993-present; Adjunct Fellow, The Claremont Institute, 
1993-present; Trainer, Association of Professional Trainers, 1997-
present; Member, Military Committee, Springfield Chamber of Commerce, 
1994-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Campaign Manager, Citizens for Matlock, Candidate for Christian 
County Sheriff, 1999-2000.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Citizens for Matlock 2000 Election, Maximum in both Primary & 
General; Talent for Governor 2000 Election, $200; Tim Hayes, Election 
2000, $100.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Hubert H. Humphrey Dissertation Fellowship 1983-1984.
    Skull & Dagger All-University Honor Society 1980.
    Blue Key Honor Society 1980.
    Distinguished Public Service Award, Department of Defense, 1992.
    Missouri Reserve Deputy Sheriff of the Year, 2000.
    Rockwell Dennis Hunt Scholastic Award, top graduate student award, 
1981-82.
    Order of the Palm, highest undergraduate award for excellence in 
scholarship and service to the University, 1980.
    Herman Fellowship, USC School of International Relations, 1980-81, 
1981-82.
    Earhart Foundation Fellowship in National Security Affairs, 1980-
81.
    Publius Fellowship, from Public Research, Syndicated, Claremont, 
California, 1981.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Gun Law Enforcement, Not More Gun Laws,'' Washington Times, April 
29, 1999.
    ``Concealed-Gun Law Can Help Us Defend Innocent,'' Springfield 
News-Leader, September 10, 1998, p. 10A.
    ``Clinton's Slow Boat to Korea,'' Comparative Strategy, Vol. 14, 
No. 1, pp. 35-44.
    ``Europe: U.S. Hobson's Choice,'' Global Affairs, Fall 1993, pp. 1-
18.
    ``The Politics of Reform in Russia,'' with William R. Van Cleave, 
et. al., Global Affairs, Summer 1993, pp. 185-204.
    ``The President and Nuclear Testing,'' Global Affairs, Spring 1993, 
pp. 122-135.
    ``A National Missile Defense?'', Comparative Strategy, January-
March 1993, pp. 57-63.
    ``Republican Responsibility,'' On Principle, February 1995, p. 5.
    Economic Reform and the Military in Russia, Report of Proceedings 
of U.S.-Russian International Security Council Conference, March 15, 
1994.
    ``Founding Fathers Got Balance Right,'' The News-Leader, February 
28, 1994, p. 7A.
    ``Multicultural Education: What Is It?,'' The Bear Review, Vol. 1, 
Number Two, January 1994, p. 1.
    The Politics of Reform in Russia, with William R. Van Cleave, 
Report of Proceedings of U.S.-Russian International Security Council 
Conference, April 15-16, 1993.
    ``European Security from an American Perspective,'' in Thomas J. 
Marshall, European Security and the U.S. Role: 1990s and Beyond, p. 30-
53. A monograph published by The Center for National Security 
Negotiations and the Institut Francais des Relations Internationales, 
1993.
    ``Charges Against SDI Program Tests Unfounded,'' The News-Leader, 
September 20, 1993, p. 7A.
    The Emerging Ballistic Missile Threat to the United States, Report 
of the Proliferation Study Team, U.S. Department of Defense, February 
1993, Chairman Lt. Gen. William E. Odom. Drafted section on 
``Possibilities of Changing Intentions,'' and reviewed and commented on 
the balance of the report.
    ``SDI and the Securing of Western Freedoms,'' Laissez Faire, July 
1992, p. 17-21.
    ``SDI: A Lasting Legacy?,'' The Wall Street Journal, June 20, 1988.
    ``Academic Tyranny at USC,'' Chapter, Academic License, Ed. by Les 
Csorba, III, 1988.
    ``Deadly Habits,'' a Review of Deadly Gambits: The Reagan 
administration and the Stalemate in Nuclear Arms Control by Strobe 
Talbott, with Patrick J. Garrity, The Claremont Review of Books, Winter 
1984.
    ``The Missile Crisis in Europe'' with William R. Van Cleave, The 
Chicago Tribune, January 1, 1984.
    ``One Defector's View: An Interview with General Leon Dubicki,'' 
conducted in West Germany, in Grand Strategy: Countercurrents, Vol. 2, 
No. 19, 1 October 1982, p. 2.
    ``The Soviet Theater Nuclear Offensive,'' in Grand Strategy: 
Countercurrents, Vol. 2, No. 13, 1 July 1982, p. 2.
    ``To Be or NATO Be: The SPD and German Neutralism,'' in Grand 
Strategy: Countercurrents, Vol. 2, No. 7, 1 April 1982, p. 2.
    ``A Bibliographical Survey of West German Security Policy,'' 
prepared for the Center for National Security Studies, Los Alamos 
National Laboratory, 1982.
    ``Mexico: Key to the New Caribbean Order,'' in Grand Strategy: 
Countercurrents, Vol. 1, No. 9, 1 November 1981, p. 10.
    Presenter, After the Cold War: Anglo-American Relations and 
Stability in Europe, at conference What Remains Special About the 
Special Relationship, sponsored by The University of Hull and The 
Fulbright Commission, April 10-11, 1995, Hull England.
    Guest Lecturer, ``American Strategic Policy Under Reagan and 
After,'' Keck Center for International and Strategic Studies, Claremont 
McKenna College, Claremont, CA, October 26, 1994.
    Presenter, Panel on ``Assessing Security Downsizing in the Light of 
Deterrence and United States Defense Commitments,'' at American Bar 
Association Conference on National Security Law in a Changing World, 
Washington, DC., International Club, October 20-21, 1994.
    Discussant, Panel on ``U.S.: The Prudence and Perils of 
Multilateralism,'' Conference on The U.S., The U.N., and the 
International Order, Century Plaza Hotel, Los Angeles, CA, October 7, 
1994.
    Briefing, ``North Korea and Nuclear Weapons: An Assessment,'' 
published by the International Security Council in Discussion of North 
Korea, July 11, 1994.
    Presentation, for M.A. Program in Education, on Problem of North 
Korea and Nuclear Weapons, Drury College, June 16, 1994.
    Interview, KSMU Radio, SMS & You, May 28, 1994 on Clinton Crime 
Bill. Presentation, Future Roles for Strategic Forces, Center for 
Strategic and International Studies, Washington, DC., May 1994.
    Participant, Conference on European Security and the U.S. Role, 
sponsored by The Center for National Security Negotiations and the 
Institut Francais des Relations Internationales, February 4-5, 1993, 
Paris, France.
    Participant, in Conference on Russian Economic Reform, sponsored by 
the International Security Council, October 1993, Washington, DC.
    Presentation on National Missile Defense at the Conference on 
Defense Against Ballistic Missiles: The Emerging Consensus for SDI, 
Washington, DC., 23 September 1992.
    ``The Politics of Near-term Deployment of the Strategic Defense 
Initiative,'' a paper presented at the Annual American Political 
Science Association meeting, September 4-7, 1987, Chicago, IL.
    ``Strengthening America's Strategic Nuclear Deterrent,'' a paper 
presented at the Ground Zero Symposium, April 21-22, 1982, Claremont, 
California.
    There are doubtless other informal speaking arrangements local to 
the Springfield area including the Breakfast Club of the Ozarks, Rotary 
Club, etc. that I have participated in but have not recorded the dates 
and topics.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Jack Dyer Crouch II.
    This 10th day of May, 2001.

    [The nomination of Dr. Jack Dyer Crouch II, was reported to 
the Senate by Chairman Levin on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 1, 2001.]
                              ----------                              

    [Prepared questions submitted to Peter W. Rodman by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                                                      June 1, 2001.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Peter W. Rodman.
cc: Hon. Carl Levin,
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. The 
focus on ``jointness'' outlined in the Defense Reorganization Act of 
1986 has significantly enhanced the readiness and warfighting 
capabilities of the U.S. armed forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening civilian control of DOD, 
improving military advice given to the President and Secretary of 
Defense, and advancing the ability of the Department to carry out its 
fundamental mission--protecting America's security and furthering its 
vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects are the 
clear responsibility and authority given the CINCs for mission 
accomplishment, and the increased attention to formulation of strategy 
and contingency planning.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the National strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I have no knowledge of any proposals to amend Goldwater-
Nichols; however, if confirmed, before any modifications are suggested, 
I believe it is necessary to review the extent to which these reforms 
have been implemented and the stated goals achieved. If any changes are 
determined to be appropriate after such a review, I am confident the 
Department would consult closely with Congress and this committee.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for International Security Affairs?
    Answer. I understand, that if confirmed, I will perform the duties 
of the Assistant Secretary of Defense for International Security 
Affairs as prescribed by Department of Defense Directive 5111.7. The 
directive notes that the Assistant Secretary of Defense for 
International Security Affairs is the principal staff assistant and 
advisor to the Under Secretary of Defense for Policy (USD(P)) and the 
Secretary of Defense for the formulation and coordination of 
international security strategy and policy; political-military policy 
on issues of DOD interest that relate to various foreign regions and 
nations, their governments and their defense establishments, for 
oversight of security cooperative programs and foreign military sales 
programs; and direction of DOD activities to promote civilian control 
of the military and standards of military professionalism respectful of 
human rights throughout the world.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld would prescribe for you?
    Answer. While I have not formally consulted with Secretary Rumsfeld 
on this issue, I would expect him to look to the Assistant Secretary of 
Defense for International Security Affairs to fulfill all the duties 
assigned to that office by statute and regulation--in particular, 
formulation and coordination of international security strategy and 
policy.
    Question. How do you see the civilian role, as opposed to the 
military role, in the formulation of strategy and contingency planning?
    Answer. As I understand this activity, the Policy Office, on behalf 
of the Secretary, initiates the contingency planning process though its 
preparation of the Presidential-approved Contingency Planning Guidance, 
and subsequently reviews actual plans developed by the military. 
Formulation of strategy and the contingency planning guidance that 
flows from it are an inherently civilian role. The military as an 
institution, or through individual leaders, has an important part in 
this process. However, leadership and final decisions relating to 
formulation of strategy and contingency guidance are appropriately 
within the purview of the Nation's civilian leaders.
    Question. Will the responsibilities of the Assistant Secretary for 
International Security Affairs include responsibility for dealing with 
NATO nuclear matters?
    Answer. The incoming Under Secretary of Defense for Policy, with 
the approval of the Secretary and the Deputy Secretary of Defense, may 
choose to restructure the current Policy organization to address better 
their concerns and priorities and the concerns and priorities of the 
President. Under the current organization, NATO and European Affairs 
fall under the responsibilities of the Assistant Secretary for 
International Security Affairs, while nuclear and counter- and non-
proliferation issues fall under the responsibilities of the Assistant 
Secretary for Strategy and Threat Reduction.
    Question. Will the responsibilities of the Assistant Secretary for 
International Security Affairs include any responsibility for 
formulating strategic nuclear policy?
    Answer. Please see answer to 2D.
    Question. Will the responsibilities of the Assistant Secretary for 
International Security Affairs include any responsibility for the Nunn-
Lugar programs?
    Answer. Please see answer to 2D.
    Question. Will the responsibilities of the Assistant Secretary for 
International Security Affairs include any responsibility with respect 
to nonproliferation efforts of the DOD?
    Answer. Please see answer to 2D.
    Question. Will the responsibilities of the Assistant Secretary for 
International Security Affairs include any responsibility with respect 
to nuclear matters in Asia, including the Agreed Framework?
    Answer. As I mentioned above, the incoming Under Secretary of 
Defense for Policy, with the approval of the Secretary and the Deputy 
Secretary of Defense, may choose to restructure the current Policy 
organization to address better their concerns and priorities and the 
concerns and priorities of the President. Under the current 
organization, Asian and Pacific affairs fall under the responsibilities 
of the Assistant Secretary for International Security Affairs, while 
nuclear and counter and non-proliferation issues fall under the 
responsibilities of the Assistant Secretary for Strategy and Threat 
Reduction.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for International Security 
Affairs?
    Answer. As currently structured, the Assistant Secretary of Defense 
for International Security Affairs will oversee development and 
implementation of U.S. security policies in many regions of the world, 
as determined by the Secretary of Defense. This traditionally includes 
various regions of potential major crisis such as the Asia/Pacific and 
the Middle East and the Gulf, and could also include challenges of 
different kinds in Latin America and Africa. In areas of potential 
major crisis, the challenge is to ensure that this country is strong in 
deterring aggression and conflict and strong in supporting its friends 
and allies. In other dimensions of U.S. security relations, DOD has an 
opportunity through its policies of engagement to contribute to 
military professionalism, respect for civilian authority and human 
rights, and otherwise contribute to strengthened political relations 
and peace and freedom. If confirmed, I look forward to meeting these 
challenges.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will advise the Secretary of Defense, the 
Deputy Secretary of Defense, and the Under Secretary of Defense for 
Policy in formulating and executing policies that deter regional crises 
and build a more secure world. I will also seek to assure that DOD's 
relationships with other countries contribute to the advancement of 
American values, as well as American strategic interests. I look 
forward to working with Congress and, in particular, with this 
committee in carrying out these responsibilities.
                           policy toward iran
    Question. In a December 1996 editorial, you expressed support for a 
policy of containment of Iran, to include tight economic sanctions.
    Given the changes that have taken place in Iran since that time, do 
you believe that containment is still the best policy for the United 
States to pursue? If so, why?
    Answer. While there have been some changes since this article was 
written, Iran continues to pursue policies that threaten U.S. security 
interests and are destabilizing to the region, including the pursuit of 
WMD and long-range missile technologies, support for terrorism, and 
support for violent opposition to Middle East peace. While internal 
changes in Iran continue to be a cause for interest and hope, it is 
unlikely that these changes, by themselves, will produce significant 
improvements in the areas of U.S. concern. It is my understanding that 
the new administration is conducting a thorough review of Iran policy. 
If confirmed, I look forward to participating in such a review.
                           iraq policy review
    Question. The administration is currently engaged in a 
comprehensive review of U.S. policy toward Iraq, to include a review of 
military options. It has been reported that one option under 
consideration is a restructuring of the sanctions regime against Iraq.
    What elements do you think are necessary for a U.S. policy designed 
to ensure Iraq's compliance with the commitments it made at the end of 
the Gulf War?
    Answer. The fundamental objective of U.S. policy toward Iraq must 
be to ensure that the Baghdad regime does not threaten our interests in 
the Gulf region and in the Middle East more broadly. That objective is 
consistent with the aims of the Gulf War cease-fire resolution and a 
succession of other UN Security Council resolutions dating back to the 
initial invasion of Kuwait--all of which are intended to assure the 
international community that Iraq can no longer be a threat to peace 
and security.
    I am advised that the ongoing administration review of Iraq policy 
focuses on three main elements: (1) refining sanctions to improve the 
precision with which sanctions target Iraqi military and WMD 
capabilities; (2) using military forces more efficiently to support our 
overarching policy objectives, including through enforcement of the no-
fly zones; and (3) facilitating a change in the regime in Iraq. These 
elements are linked to each other and the challenge is to bring all 
three together while addressing the complex task of rebuilding 
consensus in the region and in the international community.
                    developments in the middle east
    Question. The conflict in the Middle East continues to escalate, 
with both sides seemingly unwilling to take the first step to end the 
violence. On May 21, Senators Mitchell and Rudman issued a report 
recommending a possible path ahead to end the violence.
    What are your views on the Mitchell-Rudman report recommendations?
    Answer. While I would defer to the Department of State to provide 
the official U.S. view, I believe the Mitchell-Rudman report provides a 
good point of departure for renewed negotiations. The recent resumption 
of joint security talks following Ambassador Burns' visit is a step in 
that direction. The parties must work to end the violence and resolve 
their differences through negotiations.
    Question. What role do you believe the U.S. should play, if any, in 
this on-going conflict?
    Answer. I agree with the view that a solution to this conflict 
cannot be imposed on the parties. However, the U.S. must remain 
committed to helping the Israelis and the Palestinians find a way to 
end the violence and return to negotiations. As President Bush has 
stated, the United States remains committed to Israel's security and 
maintaining Israel's qualitative military edge regardless of 
circumstances. If confirmed, I will work with Congress and this 
committee to further these objectives.
                  engagement policy in the middle east
    Question. The terrorist attack on U.S.S. Cole in October 2000, 
focused attention not only on the terrorist threat in the region, but 
also on the U.S. policy of military engagement with a wide range of 
nations worldwide. Many Americans were surprised to learn that the 
United States military personnel and U.S. Navy ships made frequent 
stops in Yemen.
    What criteria do you believe should be used to determine when the 
U.S. military should pursue a policy of engagement with a nation--
particularly in a volatile area such as the Middle East?
    Answer. Engagement, if conducted wisely and at appropriate levels 
of effort, can serve U.S. interests in the Middle East including: 
strengthening alliances; deterring threats; and enhancing U.S. military 
access in this key region. I support such activities for these useful 
purposes. If confirmed, I will work to ensure that engagement in the 
Middle East and elsewhere supports our goals and that associated risks 
are fully assessed and guarded against.
    Question. If confirmed, would you ensure that there is appropriate 
civilian oversight of any such engagement decisions by our military 
commanders?
    Answer. Yes.
         regional security and dod counter-narcotics activities
    Question. For the past several years there has been a debate 
regarding the counter-narcotics activities of the Department of Defense 
with particular emphasis placed on the question of the U.S. military's 
role in the Andean Ridge. While some believe that these activities 
should more appropriately be performed by law enforcement agencies, 
others believe that these activities contribute to stability in a 
region where we have important interests.
    Would you please outline what important interests you believe the 
United States has in the Andean Ridge?
    Answer. It is my view that it is in the United States' interests to 
promote and support democracy and democratic institutions, foster 
sustainable economic development and trade liberalization, and 
significantly reduce the supply of illegal drugs. A stable, prosperous 
and democratic Andean Ridge and an improved economic and political 
environment across the Western Hemisphere are in our interests.
    Our interests, however, are threatened by the corrosive influence 
of a thriving illegal narcotics industry. Fueled by billions of dollars 
of drug money, the traffickers challenge not merely the laws of states, 
but the states themselves. It is clearly in our national interest to 
continue to work with other nations to combat narcotics trafficking.
    Given the President's firm intention to work more closely with 
Latin governments to achieve economic and security objectives, it is my 
understanding the Department of Defense is reviewing existing policies 
and programs, including the counterdrug program, to make DOD's role in 
that process more effective. I am ready, if confirmed, to oversee the 
support the President and the Secretary of Defense deem required to 
assist other agencies, and work with Congress and this committee, in 
these efforts.
    Question. Do you believe that the Department's activities in the 
theater, including counter-narcotics operations, contribute to the 
advancement of these interests?
    Answer. Please see answer to Question 8A.
                   regional stability--latin america
    Question. Over the past few decades, democracy has taken root in 
Latin America. Unfortunately, we are witnessing a retreat from 
democracy in many of these countries. Peru has suffered a severe 
political scandal, Ecuador has experienced a coup, and Venezuela could 
be headed down a path of one-man rule. Furthermore, Colombia is faced 
with escalating violence between the Colombian Armed Forces, two 
communist rebel organizations, and a collection of paramilitary forces.
    How do you view the current and future stability of the region?
    Answer. I share your concern about stability in Latin America, 
particularly in the Andean Ridge, the sub-region to which all the 
countries the question mentioned. The good news is that Andean 
governments are interested in maintaining strong bilateral 
relationships with the United States. Thus, the United States is well-
positioned to influence events there, if it is deemed necessary to do 
so.
    Question. What actions, if any, should the United States take to 
strengthen regional stability in the Andean Ridge?
    Answer. DOD plays a supporting role in defining U.S. foreign 
policy, so I hesitate to offer specific proposals. I understand the 
Department of Defense is still in the midst of a broad review of all 
its overseas activities, so it would be premature for me to suggest 
where DOD might be heading. In general, the United States should 
continue to encourage governments in the region to redouble their 
efforts to defend human rights and combat corruption; progress in areas 
such as these will help the inhabitants of the region to realize the 
benefits of democracy.
                              china/taiwan
    Question. President Bush recently stated that the United States 
would do ``whatever it took'' to defend Taiwan from China.
    What is your understanding of this statement and how will this 
impact the U.S. military posture in the Pacific region, particularly 
with regards to the U.S.-Taiwanese military relationship?
    Answer. My understanding is that the President's statement did not 
signal a change in U.S. policy toward Taiwan, or in the U.S. position 
on ``One China.'' We remain committed to help Taiwan defend itself. 
U.S. policy toward Taiwan is guided by the Taiwan Relations Act (TRA) 
of 1979. The premise of the TRA is that an adequate defensive 
capability on Taiwan is conducive to the maintenance of peace and 
security in the region, so long as differences remain between the PRC 
and Taiwan.
    There is an ongoing review of the U.S. defense strategy and 
posture. I am not privy to the progress of that review; however, if 
confirmed, I look forward to participating in that review and working 
with this committee and Congress on this important matter.
    Question. What is your understanding of how this statement will 
affect U.S.-China relations?
    Answer. Our unofficial relationship with Taiwan is an issue that is 
frequently raised in discussions between the United States and China--a 
condition likely to persist so long as differences remain between us. 
The President has also made clear his interest in building a 
constructive relationship with China.
    Question. The Department of Defense is currently reviewing the 
merits of the military to military contacts program between the United 
States and China.
    What are your thoughts on the merits of establishing a military-to-
military contacts program between the United States and Taiwan?
    Answer. This is an important issue. However, I have not had an 
opportunity to study it in detail or formulate a view on this issue.
                            export controls
    Question. In 1998 Congress transferred jurisdiction over commercial 
communications satellite export licenses from the Commerce Department 
to the State Department. Now, the aerospace industry is complaining 
that the State Department approval process takes too long and 
undermines our ability to compete internationally.
    Do you see any problems with the current licensing process for 
satellite technology, and if so, how would you change it?
    Answer. I am not familiar with the details of the export licensing 
process; therefore, I am not in a position to recommend changes. 
However, in general, I believe Congress and the administration are 
deliberate in examining any change in export controls on these 
sensitive items. Any review should be undertaken in a manner that seeks 
to preserve fundamental national security interests.
    Question. In 1995, a 6-year bilateral trade agreement was signed by 
China and the United States, restricting the number of Chinese 
commercial space launches, so that China would not unduly benefit from 
its nonmarket economy at the expense of U.S. companies. This agreement 
will expire on December 31, 2001.
    Do you believe that it is in our interest to limit the number of 
Chinese launches?
    Answer. It is premature for me to offer an opinion on this subject 
other than to say that this is a matter that could be reviewed by the 
administration. Should there be such a review, I would expect that it 
would involve the Department of Defense. If confirmed, I will work to 
ensure that U.S. space-related national security considerations are 
prominent. I am also advised that there is a substantial interest in 
this matter in Congress and that there therefore should be 
Congressional consultations associated with such a review.
    Question. Do you favor renewing the agreement?
    Answer. Please see answer to 11B.
                           engagement policy
    Question. Do you believe that engagement missions--exercises, small 
joint and multinational operations, training the trainers--contribute 
to troop readiness at the individual and small unit level?
    Answer. Engagement missions, if conducted wisely and at appropriate 
levels of effort, can serve useful purposes including: strengthening 
alliances; deterring threats; and enhancing U.S. military access in key 
regions. I support such U.S. military activities for these useful 
purposes. If confirmed, I will assist in reviewing engagement 
activities to ensure that they support our goals.
    Question. Do you believe that the U.S. should participate in 
humanitarian interventions, and if so, under what circumstances?
    Answer. Decisions on whether or when to use military forces are one 
of the most important that a President can make. Each case is unique, 
and should be guided, first and foremost, by the U.S. national 
interests at stake and by a consideration of the costs and risks of a 
particular military involvement. If confirmed, I plan to work closely 
with the Secretary of Defense and his most senior advisors to help 
develop appropriate policies on how to guide the use of our military 
forces.
                      engagement policy in africa
    Question. U.S. Special Forces personnel are beginning the second 
phase of Operation Focus Relief, a U.S. initiative to provide training 
and equipment to West African troops for peacekeeping operations.
    Do you consider this a beneficial program and would you support 
expanding it to other African nations?
    Answer. While I am not familiar with the details, it is my 
understanding that Operation Focus Relief is the sort of engagement 
intended to help regional actors deal with regional issues. Nigeria's 
peace operations capacity is key to resolution of the situation in 
Sierra Leone and the sub-region. In my opinion, supporting regional 
powers can reduce the need to engage U.S. forces.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for International Security Affairs.
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                              iraq policy
    1. Senator Levin. In an April 28, 2000 lecture at the University of 
Virginia Law School you criticized the Clinton administration as one 
``that uses only pinpricks against Saddam Hussein.'' Yet, the only 
military action President George W. Bush's administration has taken 
against Iraq has likewise been a limited airstrike on January 28th on 
Iraqi surface-to-air missile system sites in southern Iraq. How was the 
January attack different from the ones you have criticized?
    Are you advocating stronger use of force against Saddam Hussein?
    Mr. Rodman. President Bush authorized a response against Iraqi air 
defense and command and control facilities on February 16, 2001. That 
Coalition strike, against targets north of the 33rd parallel that had 
not been attacked since Operation DESERT FOX in 1998, was intended to 
signal to Saddam Hussein that we will resolutely enforce the relevant 
U.N. Security Council resolutions. I understand that the administration 
is conducting an Iraq policy review that addresses the use of military 
force, including our operations in the no-fly zones. With respect to 
the appropriate level of force, before I could formulate an opinion I 
would need to have before me all the relevant facts and considerations 
that are part of that on-going review.

    2. Senator Levin. You were one of 40 signatories of a February 19, 
1998 open letter to the President advocating that the U.S. Government:
    ``Recognize a provisional government of Iraq based on the 
principles and leaders of the Iraqi National Congress (INC) that is 
representative of all the peoples of Iraq.
    Restore and enhance the safe haven in northern Iraq to allow the 
provisional government to extend its authority there and establish a 
zone in southern Iraq from which Saddam's ground forces would also be 
excluded.''
    You urged the President to ``position U.S. ground force equipment 
in the region so that, as a last resort, we have the capacity to 
protect and assist the anti-Saddam forces in the northern and southern 
parts of Iraq.''
    Do you still support this policy and, in particular, do you still 
advocate the use of U.S. ground troops in Iraq in order to support an 
insurrection against Saddam Hussein?
    Mr. Rodman. In my view, there is no question that the whole region 
would be a safer place, Iraq would be a better country, and American 
national interests would benefit if Iraq were freed from the grip of 
the Saddam Hussein regime. The specific details of how best to support 
the Iraqi opposition, in the framework of the Iraq Liberation Act, are 
being reviewed in the context of overall policy toward Iraq. I do not 
favor the deployment of American ground forces in Iraq to replace the 
Saddam Hussein regime.

    3. Senator Levin. The administration's current efforts are to 
revise the sanctions regime by the adoption of a new Resolution by the 
UN Security Council that would apply throughout Iraq.
    Do you agree with this approach and, if so, would you explain how 
it would be consistent with the policy espoused in the February 19, 
1998 letter?
    Mr. Rodman. The ongoing administration review of Iraq policy, of 
which sanctions are a part, is, I believe, consistent with the 1998 
letter. That review focuses on three main elements: (1) refining 
sanctions to improve the precision with which sanctions target Iraqi 
military and WMD capabilities; (2) improving how we use our military 
forces, including those patrolling the no-fly zones, to support our 
overarching policy objectives; and (3) facilitating a change in the 
regime in Iraq. These elements are linked to each other. Our challenge 
is to bring all three together while addressing the complex task of 
rebuilding consensus in the region and in the international community.

                   missile defense/strategic weapons
    4. Senator Levin. In a November 22, 1999 National Review article 
you criticized the Clinton administration on their negotiations with 
Russia regarding missile defense and strategic weapons. You wrote: ``To 
entice Moscow, they are offering 1) dangerously low ceilings on 
strategic offensive weapons, 2) a very restrictive definition of the 
defenses we might employ and 3) other sweeteners, such as financing for 
new ABM radars in Siberia. The Russians haven't yet bitten. But one 
thing is certain: Such an agreement, if reached, would be defeated in 
the Senate even more overwhelmingly than the test-ban treaty.''
    President Bush has proposed substantial and unilateral reductions 
in the current levels of U.S. strategic weapons, and is also reportedly 
preparing to offer Russia a package of weapons purchases, joint anti-
missile exercises, money to rebuild its outmoded early warning radar 
system, and a proposal to include Russian S-300 surface-to-air missiles 
in a new defensive shield over Russia and Europe as enticements to 
obtain Russian agreement to scrap the ABM Treaty.
    What is your opinion of these proposals?
    If the Russians accepted such proposals, would you recommend that 
the Senate reject it?
    Mr. Rodman. There are a number of assumptions in the question with 
respect to the Bush administration's approach. In any event, the 
President has not announced specific proposals in these three areas 
though he has indicated a general direction. It would be a mistake for 
me to prejudge the decisions he may make. The key weakness I was 
criticizing in my article was #2--the Clinton administration's 
restrictions on defenses. I believe a strategic environment 
characterized by offensive reductions and expanded defenses is the most 
stable strategic environment of all.

                            nato enlargement
    5. Senator Levin. In your 1999 article ``The Future of NATO 
Enlargement'' you wrote that ``The `sensitivity' of Russians to the 
Baltic States' association with the West is not something that the West 
can, as a matter of principle, defer to.'' Subsequently, you expressed 
the view that NATO must answer the question of ensuring Baltic security 
and listed three options, namely early NATO membership for Lithuania, 
Latvia and Estonia; membership for one of the Baltic states (Lithuania) 
and one in the southeast (Slovenia); or, as an interim step, a security 
umbrella over the three Baltic states that would be short of NATO 
membership.
    Do you believe, then, that NATO has a responsibility to ensure 
Baltic security?
    If our NATO allies were unwilling to ensure Baltic security, what 
action would you recommend the United States take?
    Mr. Rodman. I believe the United States and NATO have an interest 
in the security, independence, and freedom of the Baltic states. As I 
wrote in that article, there are various options for protecting this 
interest, and NATO membership is one. In the absence of NATO guarantees 
formalized by NATO membership, I believe the United States may want to 
strengthen U.S. bilateral ties and use NATO's Partnership for Peace as 
a vehicle for strengthening NATO's security links with the Baltic 
states.

                                 bosnia
    6. Senator Levin. On December 11, 2000 in a speech to the German 
Foreign Policy Association you said: ``The more recent debate over 
reducing U.S. troops in Bosnia, originating in some statements by Gov. 
George W. Bush, is really more an issue of timing. Americans share 
European hopes that European forces can take on a greater role in 
peacekeeping in such cases. But all agree that any further transfer of 
responsibility ought to be a matter of consultation and agreement.''
    Yet--much to the consternation of our European allies--2 weeks ago 
Secretary Rumsfeld said in a Washington Post interview that he was 
``pushing'' to have U.S. troops withdrawn from Bosnia.
    Do you favor Secretary Rumsfeld's unilateral approach, or would you 
support Secretary Powell's consultative assertion that the U.S. went in 
with our allies and ``we'll come out together?''
    Mr. Rodman. My understanding of Secretary Rumsfeld's policy is that 
he does not oppose the Bosnia mission or advocate unilateral 
withdrawal. Rather, he wants to ensure that the mission is fulfilled in 
the most efficient manner. It is my understanding that there is 
complete harmony in the administration on the principle that, as we 
went into Bosnia together with our allies, we will come out together.

                             balkans policy
    7. Senator Levin. Does maintaining stability in the Balkans 
contribute to stability in Europe--and therefore bolster U.S. national 
security interests?
    How do we decide when to disengage from our current obligations in 
Europe, the Sinai and elsewhere?
    Mr. Rodman. In my view, it is in the national interest to bolster 
regional stability on NATO's southern flank, and to ensure the long-
term viability of NATO as the guarantor of security in the region. 
Decisions to alter U.S. deployments, whether in Europe or Sinai or 
elsewhere, should, I believe, depend on such factors as whether the 
mission has been reliably accomplished, whether there is a more 
efficient way to fulfill the mission, whether other partners can do the 
job, whether we can reach consensus with partners, and other factors.

                              north korea
    8. Senator Levin. If confirmed as the Assistant Secretary of 
Defense for International Security Affairs, you will be responsible for 
advising the Secretary of Defense on U.S. policy towards North Korea.
    Do you believe that the United States should continue to abide by 
the Agreed Framework as long as North Korea lives up to its side of the 
agreement?
    Mr. Rodman. Yes. I support the administration's recent announcement 
on abiding by the Agreed Framework. The administration has decided to 
undertake discussions with North Korea on a broad agenda that includes 
improved implementation of the Agreed Framework.

                              iran policy
    9. Senator Levin. In a December 1996 editorial, you expressed 
support for a policy of containment of Iran, to include tight economic 
sanctions.
    Given the changes that have taken place in Iran since that time, do 
you believe that containment is still the best policy for the United 
States to pursue? If so, why?
    Mr. Rodman. My general views of policy toward Iran have not changed 
since that article. I think that domestic developments in Iran over the 
past 4 years give reason to hope for an eventual improvement in U.S.-
Iranian relations. However, Iran continues to pursue policies that 
threaten U.S. security interests and are destabilizing to the region, 
including the pursuit of WMD and long-range missile technology, support 
for terrorism, and support for violent opposition to the Middle East 
peace negotiations. I believe it is therefore prudent for us to 
continue a strategy to deter and defend against Iranian threats to U.S. 
interests. Such a policy, I believe, has the best chance of moderating 
Iran's foreign policy.

                              iraq policy
    10. Senator Levin. The administration is currently engaged in a 
comprehensive review of U.S. policy toward Iraq, to include a review of 
military options. It has been reported that one option under 
consideration is a restructuring of the sanctions regime against Iraq.
    What elements do you think are necessary for a U.S. policy designed 
to ensure Iraq's compliance with the commitments it made at the end of 
the Gulf War?
    Mr. Rodman. Ensuring Iraqi compliance with U.N. Security Council 
resolutions since the Gulf War will, I believe, require a comprehensive 
approach. Strengthening the sanctions regime is one part of such an 
approach. Enforcing the no-fly zones and other aspects of the U.N. 
Security Council resolutions, as coalition forces are now doing, is 
also important, and the United States should, I believe, look for ways 
to accomplish this more effectively. Finally, as expressed on a 
bipartisan basis in the Iraq Liberation Act, regime change should be an 
element of U.S. policy.

                             taiwan policy
    11. Senator Levin. What are your thoughts on the merits of 
establishing a military-to-military contacts program between the United 
States and Taiwan?
    Mr. Rodman. First, I believe our military contacts should be guided 
by the provisions of the Taiwan Relations Act of 1979. Second, I would 
have to study the merits of any particular proposed contact program. 
But in principle, I would support contacts that contribute to 
deterrence and regional stability and that would enhance communication 
between the United States and Taiwan, especially in a crisis.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                             africa policy
    12. Senator Thurmond. In response to the committee's advance policy 
question on the major challenge you might face if confirmed as the 
Assistant Secretary you indicated ``challenges of different kinds in 
Latin America and Africa.''
    What do you believe are the challenges facing the United States in 
regard to Africa and how should we respond to those challenges?
    Mr. Rodman. In Africa, the challenges include tasks of building 
security ties in a way that promotes not only military skills but also 
military professionalism and respect for civil authority and human 
rights. Africa also faces the more acute challenges of instability and 
violent ethnic conflict. Sudan is an especially troubling case. DOD is 
providing training for Nigeria (along with Ghana and Senegal) to enable 
them to play a peacekeeping role in West Africa, including as part of 
the U.N. mission in Sierra Leone. This DOD effort is meant to enable 
regional countries to cooperate more effectively and take a greater 
share of responsibility for regional security.

                     iraq policy/economic sanctions
    13. Senator Thurmond. Although the sanctions against Iraq have 
precluded Saddam Hussein from rebuilding his military force, from a 
public relations standpoint they have been a disaster. We have been 
accused of causing malnutrition and the premature deaths of children 
and as a result are under pressure to lift sanctions.
    What are your views on economic sanctions and how do we reverse the 
public relations failure in regard to Iraq?
    Mr. Rodman. Sanctions were imposed to secure Iraqi compliance with 
its international obligations. In my view, they also serve a specific 
purpose--to impede the rebuilding of the Iraqi military machine. I 
therefore believe sanctions in some form should remain in place until 
Iraq complies with its obligations. There is no justification short of 
that for removing the sanctions, especially since the oil-for-food 
program is generating more than enough revenue to meet the Iraqi 
people's humanitarian needs. Moreover, Security Council Resolution 1284 
has established a roadmap for suspending and lifting sanctions based on 
Iraqi progress toward compliance.
    At the same time, I think it makes sense to review the process by 
which contracts under the oil-for-food program are now done and to 
ensure that the sanctions are applied in a focused way against Iraqi 
military capabilities. These changes in the application of sanctions 
should make it harder for Saddam Hussein to use the suffering of his 
people as an argument against the sanctions.

                             india/pakistan
    14. Senator Thurmond. What role should the United States play in 
resolving the Kashmiri dispute between India and Pakistan?
    Mr. Rodman. The United States should not, in my opinion, attempt to 
mediate the India/Pakistan dispute over Kashmir in the absence of clear 
indications that it would make a decisive difference. However, 
maintaining good relations with India and Pakistan contributes to U.S. 
influence that can have a moderating effect.

                  european security and defense policy
    15. Senator Thurmond. Many policy experts believe that the European 
Security and Defense Policy coupled with the Rapid Reaction Force will 
lead to the demise of NATO.
    What are your views on the impact of these European initiatives on 
NATO?
    Mr. Rodman. NATO will continue to be the indispensable foundation 
for American engagement in European security and for ensuring the 
collective defense of Alliance members. In my view, it is important 
that ESDP proceed in a manner that does not damage the transatlantic 
link or the ability of the Alliance to take collective action. I note 
that Prime Minister Blair told the Canadian Parliament in February that 
``NATO is our organization of choice'' and that ESDP ``applies only 
where NATO has chosen not to act collectively.'' I believe that that 
approach serves the common interests of the United States, the UK, and 
all the Atlantic allies.
                                 ______
                                 
              Question Submitted by Senator Rick Santorum
                           africa/aids threat
    16. Senator Santorum. As you are aware, President George W. Bush 
has raised the profile of the AIDS plight impacting the continent of 
Africa. The United States recently contributed $200 million to a United 
Nations trust fund to help treat individuals suffering from this 
disease and help combat the spread of the AIDS virus. More than 70 
percent of all people living with the disease, an estimated 25.3 
million HIV-positive individuals, live in Africa.
    President Bush has designated Health and Human Services Secretary 
Tommy Thompson and Secretary of State Colin Powell to chair a new high-
level task force to better coordinate the administration's activities 
and responses to the AIDS crisis. The Secretary of State has indicated 
that he considers the spread of the AIDS virus as a national security 
threat to the United States.
    What can you do as ASD/ISA to help the administration to make a 
difference in the fight against the AIDS virus? What is the appropriate 
role of the Department of Defense in response to this national security 
threat?
    Mr. Rodman. I recognize this is an enormously important subject, 
though I am not at present conversant with DOD's role in this area. If 
confirmed, I will make it a priority to obtain briefings on this 
subject and will contribute as appropriate in the interagency process 
to advance U.S. policies.
                                 ______
                                 
    [The nomination reference of Peter W. Rodman follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 14, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Peter W. Rodman of the District of Columbia, to be an Assistant 
Secretary of Defense, vice Edward L. Warner III.
                                 ______
                                 
    [The biographical sketch of Peter W. Rodman, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Peter W. Rodman
    Peter W. Rodman is Director of National Security Programs at the 
Nixon Center. He is the author of More Precious than Peace (Scribner, 
1994)--a history of the Cold War in the Third World--and of a series of 
annual strategic assessments published by the Nixon Center, the most 
recent of which is Uneasy Giant: The Challenges to American 
Predominance.
    Mr. Rodman served as a Deputy Assistant to President Reagan for 
National Security Affairs (Foreign Policy) from March 1986 to January 
1987 and then, until September 1990, under Presidents Reagan and Bush, 
as Special Assistant for National Security Affairs and NSC Counselor. 
From April 1984 to March 1986, he was Director of the Department of 
State Policy Planning Staff, advising Secretary of State George P. 
Shultz on major issues including U.S.-Soviet relations and the Middle 
East.
    In the Nixon and Ford administrations, from August 1969 to January 
1977, Mr. Rodman was a member of the National Security Council staff 
and a special assistant to Dr. Henry A. Kissinger. From 1972 to 1977 he 
took part in nearly all of Dr. Kissinger's negotiations and missions. 
Following this, he was principal research and editorial assistant to 
Dr. Kissinger in the preparation of his memoirs and was Director of 
Research for Kissinger Associates, Inc.
    Mr. Rodman has been a Senior Editor of National Review (1991-1999) 
and a Senior Advisor on foreign policy to the 1992 Republican National 
Convention Committee on Resolutions (Platform Committee). He has been a 
scholar at both the Center for Strategic and International Studies and 
the Johns Hopkins Foreign Policy Institute.
    Mr. Rodman was born on November 24, 1943, in Boston. He was 
educated at Harvard College (A.B. 1964, summa cum laude), Oxford 
University (B.A., M.A.), and Harvard Law School (J.D. 1969). He is a 
member of the boards of Freedom House, the World Affairs Council of 
Washington, DC, and the U.S. Committee on NATO. He and his wife 
Veronique live in Washington with their two children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Peter W. 
Rodman in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter Warren Rodman.

    2. Position to which nominated:
    Assistant Secretary of Defense for International Security Affairs.

    3. Date of nomination:
    May 14, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 24, 1943; Boston, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to former F. Veronique Boulad.

    7. Names and ages of children:
    Theodora Tatiana Boulad Rodman, age: 15; Nicholas George Rodman, 
age: 14.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Roxbury Latin School, 1955-1961: High School diploma 1961.
    Harvard College, 1961-1964: AB degree 1964.
    Oxford University, 1964-1966: AB degree 1966; MA 1971.
    Harvard Law School, 1966-1969: JD degree 1969.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director of National Security Programs, The Nixon Center, 1615 L 
St., NW, (#1250) Washington, DC 20036, Feb. 1995-present.
    Director of Middle East and Eurasian Studies, Center for Strategic 
and International Studies, 1800 K St., NW (#400), Washington DC 20006: 
January 1994-February 1995.
    Fellow, The Johns Hopkins Foreign Policy Institute, 1619 Mass. 
Ave., NW., Washington, DC 20036: September 1990-January 1994.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, NSC Staff (August 1969-Jan. 1977).
    Member, Policy Planning Council, Dept. of State (March 1983-March 
1984).
    Director, Policy Planning Staff, Dept. of State (March 1984-March 
1986).
    Deputy Assistant to the President for National Security Affairs 
(Foreign Policy) (March 1986-February 1987).
    Special Assistant to the President for National Security Affairs 
and NSC Counselor (February 1987-September 1990).
    U.S. Commission on National Security/21st Century, National 
Security Study Group, Member (1999-present).
    Study Group on Enhancing Multilateral Export Controls for U.S. 
National Security, Member (1999-present).
    CIA Strategic Assessment Group, China Futures Panel, Member (August 
2000-present).
    Library of Congress, Henry Alfred Kissinger Chair in Foreign Policy 
and International Affairs, Executive Director and Member of Steering 
Committee (December 2000-present).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    AMK Advisers, LLC (Member, August 1997-present).
    ipx, inc. (Consultant, June 1999-present).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    World Affairs Council of Washington, DC (Board member, 1991-
present; Vice President, 1996-present).
    Freedom House (Board member, 1996-present).
    U.S. Committee on NATO (Board member, 1996-present).
    Cosmos Club (member, 1984-present).
    Council on Foreign Relations (member).
    International Institute for Strategic Studies (member).
    George Bush Presidential Library (member).
    Ronald Reagan Presidential Library (member).
    Gerald Ford Foundation (member).
    Richard Nixon Library and Birthplace Foundation (member).
    The Federalist Society (member).
    American Automobile Association member (1970-present).
    United States Holocaust Memorial Museum (charter member).
    Friends of the National Zoo (member).
    Smithsonian Associates (member).
    National Geographic Society (member).
    National Aquarium in Baltimore (member).
    National Air & Space Society (member).
    National Trust for Historic Preservation (member).
    United Ostomy Association (member).
    WETA (member).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Jim Miller for Senate (VA), June 5, 1996 ($100)
    John Pappageorge for Congress (MI), June 10, 1996 ($100)
    David Catania for City Council (DC), Oct. 17, 1997 ($100)
    Governor Bush Committee (TX), June 29, 1998 ($200)
    Heather Wilson for Congress (NM), June 29, 1998 ($200)
    David Catania for City Council (DC), July 25, 1998 ($100)
    Heather Wilson for Congress (NM), Oct. 4, 1998 ($150)
    DC Republican Committee, Oct. 11, 1998 ($250)
    McCain for President, Feb. 28, 1999 ($200)
    George W. Bush Exploratory Committee, July 11, 1998 ($150)
    DC Republican Committee, July 11, 1998 ($250)
    McCain for President, Jan. 19, 2000 ($200)
    DC Republican Committee, May 29, 2000 ($100)
    Bush for President, May 29, 2000 ($200)
    Carol Schwartz for City Council (DC), July 3, 2000 ($150)
    Heather Wilson for Congress (NM), Sept. 17, 2000 ($100)
    RNC Victory 2000, Sept. 17, 2000 ($100)
    RNC Victory 2000, Nov. 2, 2000 ($150)
    Heather Wilson for Congress (NM), Nov. 2, 2000 ($150)
    DC Republican Committee, Feb. 15, 2001 ($100)

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Medal of Merit of the Czech Republic, awarded by President Vaclav 
Havel on September 17, 1988, in Washington, in connection with my 
support of the Czech Republic's admission into NATO.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Peter W. Rodman.
    This 15th day of May, 2001.

    [The nomination of Peter W. Rodman was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]


NOMINATIONS OF SUSAN MORRISEY LIVINGSTONE TO BE UNDER SECRETARY OF THE 
  NAVY; JESSIE HILL ROBERSON TO BE ASSISTANT SECRETARY OF ENERGY FOR 
  ENVIRONMENTAL MANAGEMENT; AND THOMAS P. CHRISTIE TO BE DIRECTOR OF 
         OPERATIONAL TEST AND EVALUATION, DEPARTMENT OF DEFENSE

                              ----------                              


                         THURSDAY, JUNE 7, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Bill 
Nelson, Carnahan, and Warner.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel; 
Creighton Greene, professional staff member; and Peter K. 
Levine, general counsel.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; Brian R. Green, 
professional staff member; William C. Greenwalt, professional 
staff member; George W. Lauffer, professional staff member; 
Thomas L. MacKenzie, professional staff member; Ann M. 
Mittermeyer, minority counsel; Joseph T. Sixeas, professional 
staff member; Cord A. Sterling, professional staff member; and 
Scott W. Stucky, minority counsel.
    Staff assistants present: Kristi M. Freddo, Thomas C. 
Moore, and Michele A. Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi and Ross Kawakami, 
assistants to Senator Akaka; Peter A. Contostavlos, assistant 
to Senator Bill Nelson; Susan Harris, assistant to Senator 
Carnahan; George M. Bernier III, assistant to Senator Santorum; 
Robert Alan McCurry, assistant to Senator Roberts; Douglas 
Flanders, assistant to Senator Allard; Kristine Fauser, 
assistant to Senator Collins; and Derek Maurer, assistant to 
Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning everybody. The committee meets 
today to consider the nominations of Susan Livingstone to be 
Under Secretary of the Navy; Jesse Roberson to be Assistant 
Secretary of Energy for Environmental Management; and Thomas 
Christie to be Director of Operational Testing and Evaluation 
of the Department of Defense.
    Just one note on the changed circumstances that we all find 
ourselves in. This committee has a time-honored tradition of 
being a bipartisan committee. The chairmen over the years have 
truly honored that tradition and have made it work. John Warner 
has added luster to that tradition. He has always reached out 
to me personally on this side of the aisle and it has been an 
honor to be a ranking member under his chairmanship. He is 
always gracious. He is always involving us in decisions. 
Obviously the chairman makes those decisions, but he has gone 
the extra mile to involve members on this side of the aisle. He 
has truly been a role model and I intend to do the best I can 
as long as I am chairman to follow that tradition.
    One never knows around here whether it is the next day or 
the next election, which can bounce the ball in a different 
direction. We get used to it. We have been here together a long 
time. We have been steadfast and good friends. Again, one of 
the highlights I know of whatever length of time I happen to be 
serving as chairman will be having Senator John Warner as my 
ranking member. So, I just want to extend my hand to him as 
chairman, and I know he will reciprocate. Indeed he will do 
more than that as he always does.
    Senator Warner. Would the Senator yield?
    Chairman Levin. I'd be happy to.
    Senator Warner. Thank you for those kind remarks. It is 
interesting in the life of the Senate, we come here from 
different parts of the United States, but we have common goals 
and certainly the security of our Nation is the first 
obligation of every citizen, from the President right on down. 
Yesterday I accompanied our President to Bedford, Virginia 
where he gave very stirring and solemn remarks in honor of the 
57th anniversary of the landings of U.S. forces and our allies 
on D-Day, June 6, 1944.
    But Senator, you and I came here exactly--and these folks 
might not know it--23 years ago. We were elected in the fall of 
1978 and took our office together, in January 1979. We were 
both very lucky to get on this committee at that time, and we 
have served together these many years. Do we have differences? 
Yes, but our fundamental guidance is always on the welfare of 
the men and women of the armed forces and to make this Nation 
strong so it can defend itself. Somehow I think there is a note 
of irony here today that you assume rightfully your 
chairmanship with dignity and grace, and we have before us a 
nominee for Under Secretary of the Navy, which is the best job 
I ever had in my life.
    Chairman Levin. The ranking member well, he will just 
surpass that. [Laughter.]
    Senator Warner. We welcome our nominees and I thank you for 
these few minutes. You will have my cooperation, as you have 
had it these many years.
    Chairman Levin. Thank you. One other note before we get to 
our nominees. Congress needs time to consider the 
administration's proposed defense budget. We have not yet 
received that budget and unless we do receive that budget soon 
we may run out of time to complete action on the Defense 
Authorization and Defense Appropriation bills before the next 
fiscal year begins on October 1. We are going to do everything 
we can to complete that action regardless of when we receive 
the budget. But, by the way, it is going to be more and more 
difficult the later we receive that budget.
    I know we will be joining together and letting the 
administration know that it is important that they get that 
budget amendment as they call it up here promptly. I'm speaking 
for all of us here when I say that. We usually take months to 
review a budget, to hold hearings, to bring the bill to the 
floor, to then have a conference. If we are going to get this 
done in 1 month essentially, it is going to be a miracle. But 
if we can get it in the middle of June, we at least would have 
at least a few extra weeks over getting it the last part of 
June.
    Senator Warner. If the Senator would yield on that. You and 
I have met with the Secretary of Defense in the past few weeks 
and he has indicated he will work through the Office of 
Management and Budget. It is his hope to get the budget up here 
late this month. Just for the record, it is the 2002 budget 
that you were discussing because the President has forwarded to 
Congress the supplemental as it relates to the 2001.
    Further, Senator, we are working on the budgets submitted 
by the last President, President Clinton, which is traditional. 
This will be a budget amendment. So we have before us now a 
budget on which our staffs have been working. I think you and I 
should also take this opportunity to reflect on the superb 
staff support that we have received all through these 23 years. 
We have today the former staff director, Les Brownlee, and the 
new staff director, David Lyles--two of the finest, together 
with their subordinates, that have ever served this committee.
    Chairman Levin. It is very true. We are blessed in many 
ways and it is one of the blessings that we have great staff 
and that they work together too.
    Our witnesses this morning have been nominated for some 
very important national security positions and they are faced 
with some difficult challenges. If confirmed, Ms. Livingstone 
will be the number two official in the Department of the Navy. 
Ms. Roberson will be in charge of the entire environmental 
program of the Department of Energy. Mr. Christie will be 
charged with ensuring that the testing of our weapons systems 
is independent, fair, and reliable. Each of our nominees this 
morning has impressive credentials and appears to be well-
qualified to take on these challenges.
    First, Ms. Livingstone served for 4 years as Assistant 
Secretary of the Army for Installations, Logistics, and 
Environment. Since then, she's been an executive with the Red 
Cross and the Association of the United States Army.
    Ms. Roberson has served for a dozen years in the Department 
of Energy, most recently as the site manager for Rocky Flats 
and as a member of the Defense Nuclear Facilities Safety Board.
    Mr. Christie has served in the Department of Defense for 
more than 30 years, including 10 years as the Deputy Assistant 
Secretary of Defense and Director of the Office of Program 
Integration. Since that time he's been the Director of the 
Operational Evaluation Division at the Institute for Defense 
Analysis.
    So, all of our nominees are highly qualified, and I not 
only want to welcome you but welcome any family members you 
have with you today. We have a tradition in our committee of 
asking our nominees to introduce family members who might be 
present. We know that a number of family members were going to 
be present but we've rescheduled this hearing so many times 
kids had to go to school finally, and a few things like that. 
So, I think Mr. Christie, you may be the only one that has a 
family member with you. Would you introduce your wife?
    Mr. Christie. I'm lucky enough for this to be my first 
hearing and I haven't had any postponement. This is my wife 
Kathleen who has put up with me for many years.
    Chairman Levin. Maybe we should call her as a witness. 
[Laughter.]
    Each of the families whether they are here to hear this in 
person or whether they will hear about it later and know about 
it later are indeed part of this effort and make sacrifices 
along the way. We are grateful to you for the support you have 
given Mr. Christie and to your families all whether they are 
here or not here today for what sacrifices they will be making.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I would like to 
place in the record my opening statement, followed by the 
opening statement of Senator Thurmond. Also, Senator Allard had 
hoped to be here today, Ms. Roberson. But I believe he is at 
the White House in connection with the signing of the tax 
legislation this morning. A number of our members have the 
opportunity to join the President on this historic moment. So, 
I would ask unanimous consent that his statement also be placed 
into the record.
    Chairman Levin. It will be.
    [The prepared statements of Senators Warner, Thurmond, and 
Allard follow:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in welcoming the nominees and their families.
    Ms. Livingstone, I regret your husband, Neil, could not be here 
today.
    Ms. Roberson, I understand that your daughter, Jessica, is here 
with you today. Welcome to you both.
    Mr. Christie, I understand your wife, Kathleen, is here with you 
today. Welcome.
    Family support is critical to the success of individuals in senior 
positions in our government and we appreciate the support and 
sacrifices of the families of these distinguished nominees.
    Ms. Susan Morrissey Livingstone is returning to the Pentagon for a 
second tour of duty. She served as Assistant Secretary of the Army for 
Installations, Logistics, and Environment from 1989 to 1993. The 
Department of the Navy will welcome you, nonetheless, I am sure. Some 
32 years ago, I myself had the privilege of serving in the billet to 
which you have been nominated, and I congratulate you. Ms. Livingstone 
has also rendered distinguished service in the Veterans' Administration 
in various senior positions, with the American Red Cross, and, 
currently, she is the CEO of the Association of the United States Army. 
We are grateful for her commitment to the welfare of our men and women 
in uniform.
    Ms. Jessie Hill Roberson is a distinguished member of the Defense 
Nuclear Facilities Safety Board, having been confirmed by this 
committee in 1999. Prior to that she worked for the Department of 
Energy for 11 years, serving in a variety of positions managing 
projects associated with nuclear reactor operations and environmental 
restoration. Her last assignment was Site Manager at the Rocky Flats, 
Colorado, Environmental Technology Site, where she performed her duties 
in an outstanding fashion. On behalf of our colleague, Senator Allard, 
I would ask that an introductory statement summarizing Ms. Roberson's 
achievements be entered into the record.
    Mr. Thomas P. Christie, who, I note, is a Virginian, is also 
returning to the Department of Defense for another tour, having 
previously served with OSD's Program Analysis and Evaluation Office 
and, from 1986 to 1989, as Deputy Assistant Secretary of Defense for 
Programs and Resources and Director of Program Integration. Most 
recently, Mr. Christie has worked for the Institute for Defense 
Analysis (IDA) as director of its Operational Evaluation Division.
    Your willingness to serve again in this most important post as the 
Department of Defense's Director of Operational Test and Evaluation is 
appreciated.
    Our nominees have a wealth of experience and accomplishments. I 
believe they will excel in the position to which they have been 
nominated. We welcome them and their family members and look forward to 
their comments and responses today.
    Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman: Chairman Levin, I want to join my 
colleagues in congratulating you on your accession as Chairman of the 
Armed Services Committee. This committee has a great tradition of 
placing the security of the Nation and the welfare of its men and women 
in uniform above partisanship. I know under your leadership we will 
continue in that tradition and I look forward to working with you and 
your staff as you assume this great challenge.
    Mr. Chairman, I join you in welcoming this distinguished group of 
nominees. I find that this group is especially noteworthy since they 
have all had prior service in appointed positions within the executive 
branch. They have an appreciation of the challenges and personal 
sacrifices that they can expect once they are confirmed for the 
positions to which the President has nominated them.
    I want to extend my congratulations and appreciation to each 
nominee. Once you are confirmed, you will each have a vital role in 
assuring the security of our Nation. More importantly, every action you 
take will have a direct impact on the 1.4 million men and women who 
wear the uniforms of our military services and the thousands of civil 
servants who support them. You can be assured that you will have my 
support and that of this committee in carrying out these 
responsibilities. I only ask that you keep us informed and do not 
hesitate to contact us when you need our support.
    Thank you, Mr. Chairman.
                                 ______
                                 
               Prepared Statement by Senator Wayne Allard
    Mr. Chairman, Senator Warner, and members of the committee--I am 
honored to be able to introduce and recommend a person who I believe is 
an exceptional and deserving nominee to be the next Assistant Secretary 
for Environmental Management at the Department of Energy, Ms. Jessie 
Roberson.
    Currently, Ms. Roberson is a Board Member of the Defense Nuclear 
Facilities Safety Board or DNFSB. The DNFSB is the oversight body which 
ensures the nuclear health and safety activities at all of DOE's 
nuclear weapons complex. She has been a Board Member since January 
2000.
    Prior to being a Board Member, Ms. Roberson was with the Department 
of Energy. In her 10 years with the Department she was at the Rocky 
Flats Environmental Technology Site, Golden, Colorado and the Savannah 
River Site, Aiken, South Carolina. It was during her time at Rocky 
Flats that I met and befriended Ms. Roberson.
    In 1996, she became the Manager of the Department of Energy's Rocky 
Flats Field Office. She was ultimately responsible for the integration 
and performance of all environmental cleanup activities at Rocky Flats.
    Before becoming the Site Manager, Rocky Flats was scheduled for a 
2015 cleanup and closure date, but once she stepped in as manager, she 
put into place a more robust and vigorous plan to close the site at the 
end of 2006. I can say unequivocally that without her leadership this 
ambitious plan would never have been a reality.
    While I believe Ms. Roberson's credentials and experience alone 
speak for her qualifications to become the next Assistant Secretary for 
Environmental Management at the Department of Energy, she has also 
received numerous awards and honors. In 1998 she was recognized as one 
of the top 25 newsmakers in the construction industry with a 1997 
Newsmaker Award by Engineering News Record.
    In 1997, Fort Valley State University awarded her the Platinum 
Achievement Award for Outstanding Leadership in the Field of Energy. 
Plus, the Girl Scouts Mile Hi Council awarded Jessie the Women of 
Distinction Award. In 1996 Ms. Roberson was honored with the Black 
Engineer of the Year Award for Professional Achievement in Government 
and the NAACP Scientific Achievement Award by the Conecuh County 
Branch.
    I have worked with her for many years and have seen her make many 
tough, and sometimes not always popular, decisions. However, she stood 
her ground, took care of business and got the job done. Jessie also 
worked very close with the state and local communities. She kept 
everyone involved and informed during every phase of the project.
    As a matter of fact, the Governor of Colorado, Bill Owens, strongly 
supports Jessie's nomination. Plus, the Denver Post wrote an April 3, 
2001 Denver Post editorial, titled ``Roberson a top flight pick'' which 
I would like to insert into the record. Due to her efforts of 
cooperation at Rocky Flats, today state and local communities are the 
biggest supporters of the closure activities at Rocky Flats and not all 
closure sites can claim this.
    Mr. Chairman, Jessie will bring 17 years of private and public 
sector experience in the nuclear field with an emphasis in 
environmental cleanup and restoration, low level waste management, 
nuclear reactor operations and project management, and safeguards and 
security to the Environmental Management job.
    Given Jessie's extensive experience and qualifications, I strongly 
recommend her swift approval for the position of Assistant Secretary of 
Energy for Environmental Management at the Department of Energy. I am 
very proud to call Jessie a friend and hope to soon call her Madame 
Assistant Secretary.
    Again, thank you for allowing me to speak on behalf of Jessie.
      

                         4/3/01--Denver Post 6B

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Warner. I compliment each of you and have had the 
privilege to meet with you and talk with you. I commend the 
President and the Secretary of Defense. This team he is putting 
together is just incredible in terms of experience and 
qualifications to take on the very heavy responsibilities with 
regard to our Nation's defense, and certainly your 
responsibilities in the Energy Department are tied very closely 
to those in the Department of Defense.
    The problems before you Ms. Roberson are mountainous. In 
the statement by Senator Allard, he cites an article from the 
Denver Post, which says ``Roberson: A Top Flight Pick''. I 
think that says it all. You do not have to go beyond that 
headline.
    Ms. Livingstone, you have a great opportunity before you 
and you are going to enjoy every day of it. I will have a 
chance in the months and years to come to work with you, and 
perhaps give you a little advice along the way. But I certainly 
think from your distinguished background, you are well-
qualified to proceed on this. You have my strong support, all 
three of you.
    Mr. Christie, thank you and your wife for returning to 
serve in another important position, but this time at a little 
higher pay grade, however, with the same problems. The Nation 
needs to re-equip its military with cutting edge technology and 
you will be responsible for that. I remember so well the 
stories--I experienced some of them myself in the modest career 
I had in the military--about the weapons, clothing, and other 
things that were getting into the field that were not 
adequately tested. The M-16 rifle went through a tortuous 
scenario and indeed maybe life and limb were lost because of 
the failure of that testing. But you know those things far 
better than I. So, I wish you luck. Thank you, Mr. Chairman.
    Chairman Levin. Talking about testing reminds me of a 
former colleague of ours who, when the testing wasn't adequate, 
went down to test the DIVAD system for himself. That was the 
end of that system. Senator Nelson, do you have an opening 
statement you would like to make?
    Senator Bill Nelson. No, thank you, Mr. Chairman.
    Chairman Levin. Let me ask the following questions of each 
of our witnesses. In response to the advance policy questions 
you agreed to appear as a witness before congressional 
committees when called to ensure that briefings, testimonies, 
and other communications are provided to Congress. So, we 
already have those commitments. Now I will ask the following 
questions.
    Have each of you adhered to applicable laws and regulations 
governing conflict of interest? Ms. Roberson first.
    Ms. Roberson. Yes, I have.
    Chairman Levin. Ms. Livingstone?
    Ms. Livingstone. Yes, Mr. Chairman.
    Chairman Levin. Mr. Christie?
    Mr. Christie. Yes, I have.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions that would appear to presume the outcome of the 
confirmation process? Ms. Roberson?
    Ms. Roberson. No, Mr. Chairman.
    Chairman Levin. Ms. Livingstone?
    Ms. Livingstone. No, sir.
    Chairman Levin. Mr. Christie?
    Mr. Christie. No, sir.
    Chairman Levin. Would you assure that the Department 
complies with deadlines established for requested communication 
including prepared testimony and questions for the record and 
hearings? Ms. Roberson?
    Ms. Roberson. Yes, Mr. Chairman.
    Chairman Levin. Ms. Livingstone?
    Livingstone. Yes, Mr. Chairman.
    Chairman Levin. Mr. Christie?
    Mr. Christie. Yes, Mr. Chairman.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests? Ms. 
Roberson?
    Ms. Roberson. Yes, sir.
    Chairman Levin. Ms. Livingstone?
    Ms. Livingstone. Yes, sir.
    Chairman Levin. Mr. Christie?
    Mr. Christie. Yes, Mr. Chairman.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony? Ms. Roberson?
    Ms. Roberson. Yes, Mr. Chairman.
    Chairman Levin. Ms. Livingstone?
    Ms. Livingstone. Absolutely.
    Chairman Levin. Mr. Christie?
    Mr. Christie. Yes, Mr. Chairman.
    Chairman Levin. The responses that I've referred to the 
committee's pre-hearing policy questions and our standard 
questionnaire will be made a part of the record. We have 
received the required paperwork on each of the nominees and we 
will be reviewing that paperwork to ensure that it is in 
accordance with the committee's requirements. After the opening 
statements, if they choose to give any, by our nominees we will 
proceed with the first round of questions limited to 6 minutes 
for each Senator on the basis of the early-bird rule. Before we 
begin we have already covered that so we will now call upon our 
witnesses. I think the order we have them listed in our notice 
is the order we will call upon them. Is that right protocol? 
All right.
    Ms. Livingstone, you are first.

 STATEMENT OF SUSAN MORRISEY LIVINGSTONE, NOMINEE TO BE UNDER 
                     SECRETARY OF THE NAVY

    Ms. Livingstone. Thank you, Mr. Chairman. First, Mr. 
Chairman, I would like to thank Senator Conrad Burns for his 
leadership on behalf of our Nation and our home state, the 
great State of Montana. Senator Burns was going to introduce me 
today but had a schedule conflict, which as you probably 
noticed, is I believe the signing of the tax bill.
    Mr. Chairman, Senator Warner, and distinguished members of 
this committee, it is a sincere honor and privilege to appear 
before you as the nominee for Under Secretary of our 
incomparable Navy and Marine Corps team. In the interest of 
time, Mr. Chairman, I would ask that my formal statement be 
submitted for the record, and that I might just make a few 
brief comments at this time.
    Chairman Levin. It will be made a part of the record.
    Ms. Livingstone. Thank you. If I merit your confirmation, I 
am more than humbled by the opportunity to again serve our men 
and women in uniform, both active and reserve, their families, 
as well as the civilian workforce and those who served before--
our military retirees. I thank President Bush for his 
nomination, and Defense Secretary Rumsfeld and Navy Secretary 
Gordon England for the opportunity to be a part of their team. 
I sincerely thank this committee for all that you do on behalf 
of our Nation and those who serve in its defense. If confirmed, 
I look forward to closely working with this committee and all 
members of Congress in support and advocacy of those who today 
volunteer to so selflessly serve in defense of our Nation, and 
in particular, the U.S. Navy and Marine Corps.
    To close, Mr. Chairman, with the committee's indulgence, I 
want to thank my family for their abiding love and support, and 
particularly my husband of nearly 33 years, Neil. Their 
foundation has been a mainstay of my life. If I might, I would 
like to wish my parents, Catherine and Dick Morrisey, who 
retired after a career in the Air Force to Russellville, 
Arkansas, not only a very happy birthday, but also happy 
anniversary. Both of them just recently turned 83 and on June 
4, celebrated their 62nd wedding anniversary.
    Thank you, Mr. Chairman. That concludes my opening remarks.
    [The prepared statement of Ms. Livingstone follows:]
            Prepared Statement by Susan Morrisey Livingstone
    Mr. Chairman, members of the committee, it is my distinct honor to 
appear before you today in seeking confirmation as the Under Secretary 
of the Navy and the privilege to work with our incomparable Naval 
forces. I would also like to express my deepest thanks and appreciation 
to the President, Secretary Rumsfeld, and Secretary-Designate England, 
for this opportunity to serve our Nation and our incomparable Navy and 
Marine Corps. I am in full support of the President, the Secretary of 
Defense, and the Secretary-Designate of the Navy in their effort to 
build a Navy Department which addresses the needs, threats and 
opportunities of the 21st century. Should I be confirmed, I look 
forward to the opportunity to work closely with this committee and 
Congress to effect this transformation within the Department.
    Previously, Secretary-Designate England stated he intended to 
initiate four thrusts in support of the President's vision. These 
initiatives centered on combat capability, people, technology, and 
business practices. I am in complete agreement with the focus and 
proposed effort in these areas, and if I am confirmed, I welcome the 
opportunity to support these initiatives and look forward to moving 
them forward in the Department of the Navy.
    Beginning with combat capabilities, this committee is well aware 
the mission of the Navy and Marine Corps is to deter, train for, and 
when necessary, fight and win the battles of our Nation. As such, it is 
only logical that combat readiness, to include platforms, weapons 
systems, and training, be the primary focus of the Department's 
collective efforts. Given limited and limited resources, the question, 
``does this system, base, facility, or program substantively contribute 
to improved unit combat capability and readiness?'' needs to be asked, 
and often. It is also critical that the Department invest in doctrinal 
experimentation to find innovative and leading edge ways of 
accomplishing our mission.
    People are by far our most important and valuable resource and we 
need to do a first-class job of taking care of them. Our uniformed and 
civilian work force is not an unlimited resource, rather it is very 
finite, and if confirmed, I will take great pains to ensure this 
valuable resource is treated responsibly and with the respect they 
deserve. Therefore, I fully support Secretary-Designate England's 
emphasis on ``Quality of Service'' for all our sailors and marines, 
both active duty and reserve, civilians and their families. Competitive 
compensation and quality housing, workplace resources, professional 
development, health care and training, combined with an operational 
tempo which considers not only the community and the family, but also 
the needs of the individual, are but a few of the areas which I 
consider important to improving their quality of service.
    The advancement of technology is occurring at a blinding pace and 
is central to the strength of our military. I am in complete agreement 
with Secretary-Designate England in the need to focus on the leveraging 
capability of technology. To maximize our investment however, the Navy 
Department needs to draw from the broad spectrum of academia and 
industry, streamline outdated bureaucratic processes and come into 
closer alignment with proven business practices.
    But improving business practices goes beyond technology to all of 
the considerable non-operational activities of the department. We must 
focus our resources on acquiring combat capabilities, and not on 
processing paper.
    In essence, we need to increase the ``tooth'' part of the ``tooth 
to tail'' ratio. If confirmed, it is my intention to work closely with 
Secretary-Designate England to put in place such management techniques 
as will help managers know the actual cost of a process or system; some 
empirical method to measure worth or success; and ways to evaluate what 
is needed to improve or modify that system. In short, we must fix the 
process to improve the product.
    In summation, if confirmed, I look forward to closely working with 
Secretary-Designate England and with this committee to improve Navy and 
Marine Corps combat capabilities, the quality of service for our 
people, incorporate new and innovative technologies in a prudent but 
quicker manner, and bring the Department of the Navy's business 
practices into the 21st century. As each one of these efforts is 
inherently related and given that the Department is a large and complex 
entity, the challenge is large. But we owe the men and women of the 
Navy and Marine Corps nothing less. The continued support of this 
committee is essential to this undertaking and if confirmed, I am 
committed to close communications, cooperation, and coordination with 
you.
    Thank you for your consideration.

    Chairman Levin. Thank you.
    Ms. Roberson.

  STATEMENT OF JESSIE HILL ROBERSON, NOMINEE TO BE ASSISTANT 
        SECRETARY OF ENERGY FOR ENVIRONMENTAL MANAGEMENT

    Ms. Roberson. Thank you, Mr. Chairman, Senator Warner, and 
other members of the committee. It is a privilege to appear 
before you today as the President's nominee to be Assistant 
Secretary of Energy for Environmental Management. I thank the 
President and Secretary Abraham for their support. I look 
forward to serving under Secretary Abraham in this critical 
position.
    I also thank you, Mr. Chairman, and your staff for moving 
rapidly on my nomination. I pledge to work closely with this 
committee and all of Congress in meeting the many challenges 
ahead. Mr. Chairman, I would also ask that the completion of my 
statement be included in the record.
    Chairman Levin. It will.
    Ms. Roberson. I come before you today with an appreciation 
of the magnitude of the task I am undertaking. As a former 
environmental program manager at the Savannah River Site in 
South Carolina and a former site manager at Rocky Flats in 
Colorado, I have experienced firsthand the many difficulties 
that we face in achieving safe and effective clean-up of the 
Cold War legacy. My work as a member of the Defense Nuclear 
Facilities Safety Board has further broadened my outlook to 
encompass the issues confronting the entire DOE complex.
    However, I am not daunted by the task. I am ready to get on 
with it. I share Secretary Abraham's view that we can and will 
do a better job than we have. That we can and will make 
achievable clean-up commitments and that we will meet our 
commitments to the states and to our citizens and that we can 
and will use taxpayer's money responsibly.
    I commit to working with Congress, the States, and 
individual citizens and informing them of our goals, plans, 
methods, and performance in an open and transparent manner. 
Perhaps I can condense my thoughts today by saying that I 
intend to learn, to encourage, to communicate, and to act and 
that I will devote my fullest energies to this task every day 
that I serve in this position.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Roberson follows:]
               Prepared Statement by Jessie Hill Roberson
    Good morning, Mr. Chairman, Senator Warner, and other members of 
the committee.
    It is a privilege to appear before you today as the President's 
nominee to be Assistant Secretary for Environmental Management. I thank 
the President and Secretary Abraham for their support and look forward 
to serving under Secretary Abraham in this critical position. I also 
thank you, Mr. Chairman, and your staff for moving rapidly on my 
nomination. I pledge to work closely with this committee and all of 
Congress in meeting the many challenges ahead.
    I come before you today with an appreciation of the magnitude of 
the task I am undertaking. As a former Environmental Program Manager at 
Savannah River and a former Site Manager at Rocky Flats, I have 
experienced first-hand the many difficulties we face in achieving safe 
and effective cleanup of the Cold War legacy. My work as a member of 
the Defense Nuclear Facilities Safety Board has further broadened my 
outlook to encompass the issues confronting the entire DOE complex.
    I am not daunted by the task, however, rather, I am eager and 
anxious to get about it. I share Secretary Abraham's view that we can 
and will do a better job than we have been doing, that we can and will 
make achievable cleanup commitments and we will meet our commitments to 
the States and our citizens, and that we can and will use taxpayer's 
money responsibly.
    Mr. Chairman, I plan to acquire a deep understanding of the 
technical strengths and weaknesses of the existing environmental 
program I am being asked to manage. I need to know successes, failures, 
where it has inspired public confidence, and where it has disappointed 
the public's expectations. I will participate in making a series of 
critical decisions on projects that are just not making the grade. I 
recognize fully that hard decisions like these will not please 
everyone, nonetheless, decisions must be made and carried out. I will 
challenge the employees in my charge, from top managers to the hands-on 
employees in the field to satisfy our commitments.
    Finally, I commit to informing Congress, the States, and individual 
citizens of my plans, goals, methods, and performance. Why is this 
critical? I cannot say it nearly as well as President Franklin 
Roosevelt in his Second Inaugural: ``Government is competent when all 
who compose it work as trustees for the whole people. It can make 
constant progress when it keeps abreast of all the facts. It can obtain 
justified support and legitimate criticism when the people receive true 
information of all that government does.''
    Perhaps I can condense my thoughts today by saying that I intend to 
learn, act, encourage, and communicate, and that I will devote my 
fullest energies to the task every day that I serve in this position.
    Mr. Chairman and other members of the committee, I will be pleased 
to answer any questions you may have.

    Chairman Levin. Thank you.
    Mr. Christie.

  STATEMENT OF THOMAS P. CHRISTIE, NOMINEE TO BE DIRECTOR OF 
     OPERATIONAL TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Christie. Thank you, Mr. Chairman and Senator Warner, 
for your gracious remarks. With your indulgence and approval 
and with the indulgence and approval of the other committee 
members, I will dispense with an opening statement and just 
make a few remarks here. I do want to express my feelings about 
what an honor it is to have been selected for this position and 
to be appearing before you today. Also, I'm deeply honored that 
President Bush has nominated me and Secretary Rumsfeld has 
supported me for the position of the Director of Operational 
Test and Evaluation.
    They have proposed, with your advice and consent, to 
entrust me with the position and a mission vital to the Nation, 
to Congress, and to the Department of Defense. If confirmed, I 
will work with this committee and other members of Congress to 
ensure that the weapons and equipment that we deliver to the 
men and women of our armed forces are adequately tested and are 
operationally effective, suitable, and survivable for their use 
in whatever combat situations our troops end up using them. I 
look forward to your questions.
    Chairman Levin. Mr. Christie, we thank you. Let me begin, 
Ms. Livingstone, with you. First on Vieques. Over the past 
couple of years our naval forces have been unable to conduct 
live fire training in the Navy's training range on Vieques. 
This has degraded the readiness of our forces to execute their 
wartime missions. Senator Inhofe and others on this committee 
have been particularly active in this area relative to this 
problem. An agreement was reached with the previous governor of 
Puerto Rico to try to resolve the issue. But the current 
governor of Puerto Rico does not appear to support the 
agreement. How do you believe that the issue should be 
resolved?
    Ms. Livingstone. If confirmed, I perceive my role as being 
the strongest possible advocate on behalf of the Navy and the 
Marine Corps in terms of meeting their training needs. In terms 
of meeting those training needs I think there is no substitute 
for the ability to train as they fight, which would include 
live fire. Vieques is a very unique training range with 
capability in terms of providing not only integrated but also 
combined arms training. Really for the near term I do not see 
any possible alternative to meeting those kinds of training 
requirements other than hopefully being able to somehow 
continue to train in Vieques.
    Chairman Levin. The President has said that the Navy needs 
to find another base to replace Vieques. Do you know of any 
plans underway to find another location or to renegotiate the 
agreement reached by President Clinton and the Navy with Puerto 
Rico?
    Ms. Livingstone. No, sir, I do not. I do believe that the 
Navy is looking into possible alternatives for live fire 
capability, but Vieques is a very unique asset. If there were 
some longer term area, or longer term option, other than 
Vieques for combining integrated and live fire training, it 
would really need to look like and be like Vieques and also 
combine the instrumentation and evaluation capability that 
Vieques does. But I know of no specific options review of 
alternatives at this point, other than, I believe, one on live 
fire.
    Chairman Levin. As part of the agreement, Puerto Rico was 
supposed to make sure that the exercises could continue there 
until an election was held or a referendum was held. They kept 
their end of the bargain.
    Ms. Livingstone. Sir, I only know what I have read in the 
newspapers. It appears the exercises have been able to move 
forward. I know there have been some protests and some 
difficulties in that regard, but the training has proceeded, 
and I believe there has been an announcement that additional 
training will occur soon in Vieques.
    Chairman Levin. With the support of the government?
    Ms. Livingstone. That I cannot answer, sir. I simply do not 
know.
    Chairman Levin. Secretary Rumsfeld has stated that new base 
closures, and this is a question related to BRAC, will be 
needed to address the Defense Department's excess 
infrastructure. Do you believe the Department of the Navy has 
excess infrastructure?
    Ms. Livingstone. Yes, Mr. Chairman. I believe as the 
military service is currently sized there is excess 
infrastructure. Obviously, we have the Quadrennial Defense 
Review ahead and that study may point more specifically to 
areas and opportunities where base realignments and closures 
would be beneficial.
    Chairman Levin. Do you believe there have been savings from 
previous rounds of base closures?
    Ms. Livingstone. I have been away from the Pentagon since 
1993. I am aware of GAO reports that have looked at and 
verified that there have been significant cost savings. I 
cannot speak specifically to that. I know that there are a lot 
of upfront costs that occur, environmental cleanup 
notwithstanding, and that must be expended. But I believe the 
GAO has underscored that there are real and very distinct 
savings from base closures.
    Chairman Levin. Former Secretary Danzig made an effort to 
reduce the demands for manpower on Navy ships. The new DD-21 
scheduled to be deployed in 2010 would have a crew size of as 
few as 95 people compared to a crew of more than 300 on a 
comparable ship today. In the nearer term, the Navy has started 
to outfit existing ships with more automation--a so-called 
Smart Ship Program--to reduce the need for people. That program 
has run into technical difficulties. Do you plan to pursue such 
initiatives such as the Smart Ship Program to help reduce 
demands on personnel and on their operating tempo?
    Ms. Livingstone. Mr. Chairman, I would look forward to, if 
confirmed, working with Secretary Gordon England in that 
particular area. I have not been briefed on the specifics, but 
from what I know as a person from the outside that has been 
reading in those areas, the smart ship and crew sizing both 
appear to be very beneficial programs that are worthy of being 
pursued strongly.
    Chairman Levin. In your answers to the pre-hearing 
questions, you stated that currently the application of 
advanced technology is significantly lagging in its 
availability. We must become far more agile in applying and 
leveraging the capability of technology. What specific 
recommendation do you have for reducing the time between the 
availability and the application of advanced technology for 
systems within the Defense Department?
    Ms. Livingstone. Mr. Chairman, my reference in my written 
responses to those questions really was looking to the area of 
acquisition reform, the length of time it takes the Department 
of Defense and actually the Federal Government to move from 
requirements to actual production and capability. What I would 
be looking for would be areas where we could shorten that cycle 
in the acquisition arena in order to ensure that technology can 
be more readily available. I believe Secretary England has 
talked about some initiatives such as spiral development, 
things of that nature. I would look forward, if confirmed, to 
working with him as well as OSD and this body on acquisition 
reforms that would allow us to perhaps leverage the 
capabilities of technology much more quickly than we are 
currently.
    Chairman Levin. Back to Vieques for a moment. The 
referendum is scheduled for November 6. Will you support the 
result of that referendum?
    Ms. Livingstone. Mr. Chairman, my inclination is to again 
go back to what my perceived role would be, which is, if 
confirmed, to serve as the strongest possible advocate for the 
training requirements and needs of our Marine Corps and our 
Navy team. That said, I know there is an agreement and I also 
know there is congressional statutory language and obviously 
within the parameters of what is appropriate, I will support 
the law.
    Chairman Levin. My time's expired.
    Senator Bill Nelson. Will you yield?
    Chairman Levin. I would yield to you on that----
    Senator Bill Nelson. If you could give us some 
clarification on that--and perhaps Senator Warner could help 
clarify for this new member of the committee. The United States 
made an agreement, as I understand, with Puerto Rico 
specifically with the island of Vieques that there would a 
November 6 referendum.
    Senator Warner. That is right. That was sanctioned by 
Congress in statute.
    Senator Bill Nelson. Then is there any question that we 
should not honor that agreement that we made? Because that was 
not the answer of the witness----
    Senator Warner. If I may say, Senator, I do not think there 
is any question on the part of the previous administration or 
this administration that that agreement should be honored. The 
practical effect is with the change in the political landscape 
there. The current administration in Puerto Rico has decided 
not to accept the agreement, which was entered into by the 
previous administration. That places before the military 
services--particularly the Navy and Marine Corps--a very 
serious dilemma. Adequate training with live fire ammunition is 
essential for those elements of our military who are being 
deployed now into the Gulf region where so often they find that 
within a matter of days or weeks after arriving on scene to 
relieve the previous contingents, they are in a combat 
situation.
    So we have a very serious problem. I think there has been a 
natural sequence between the administrations, a joint view and 
a law. We have kept our word. Regrettably, the current 
administration in Puerto Rico desires not to do it and this 
places a tremendous burden on the chiefs of services of our 
Navy and Marine Corps together with their civilian bosses, the 
Secretary and the Under Secretary. I think our witness today 
has responded to these questions as best as she or any other 
witness placed in this position could respond.
    Chairman Levin. Senator Nelson, my recollection is that 
there was an agreement and part of that agreement was that the 
government of Puerto Rico was to assure us access to that base 
during the interim until the election. We made certain 
commitments in that agreement as well, but I am one who 
believes that we ought to keep our commitments. I also believe 
that Puerto Rico ought to keep its commitments. When the 
governor started the lawsuit to prevent us--as I understand it, 
and I want to double check this--to prevent us from having the 
ability to do exactly what the agreement said we were supposed 
to have the ability to do in the interim. I was troubled by the 
lawsuit because it seemed to me that it was inconsistent with 
the agreement.
    Now that gets into a legal situation which is not up to us, 
or at least I am not going to try to comment on or resolve it 
because I do not know the precise wording of it. I happen to 
believe that both parties to an agreement ought to keep their 
agreement and where that leads us, I do not know. Thank you for 
that follow-up question about the referendum. I think it is 
very important.
    Senator Warner. Senator, if I could just say, I think that 
the committee would welcome your active participation, and I 
would suggest that you talk with Senator Inhofe. He has really 
put in a lot of time on behalf of this committee and made many 
trips down there and to have someone from your side of the 
aisle to join in that volume of work would be very helpful. It 
is a challenge.
    Ms. Livingstone, I just want to chat a moment or so. I 
remember experiences I had when I was in your office. One I 
will never forget--I went to the retirement ceremony overseas 
of a four-star admiral who was renown for his extraordinary 
career in the United States Navy. When I arrived I had a very 
modest role to represent the President at his retirement and so 
forth, put in I think some 40 years in the Navy, and when I 
arrived the ceremony was being put in place, and it was quite a 
grand ceremony which was befitting his distinguished career. He 
asked if he could sit down and talk with me. He said, ``I am 
not going to go down there and retire until I get your 
assurance that you are going to protect the heart and soul of 
the United States Navy,'' at which time he proceeded to lecture 
me at great length.
    Although I had a very modest career in the Navy, I have 
studied it and I learned from him that there is a heart and 
soul to each of the military services. They are different in 
different ways. There is a difference between the Marine Corps 
and the Navy. But I would hope that you would spend time with 
those who have devoted much of their lives, whether they are on 
active or retired status, to understand the intangible 
qualities, which are the magnificence of our services. There is 
nothing like it, nothing comparable in the world as you said in 
your opening statement.
    So I just hope that you will avail yourself of the 
opportunity to learn as I did and continue to learn about the 
services and what is so important because those intangible 
qualities are what attract the men and women today to accept 
the challenges, the risks--indeed the risk of life in some 
instances--to wear the uniform, and their families to have to 
pack and move so many times when their civilian counterparts 
remain safely in their villages and towns and cities across 
America and get to pursue a more controlled life.
    Ms. Livingstone. Senator Warner, I appreciate your comments 
and I can assure you, if confirmed, I look forward to nothing 
more than communicating very closely with the men and women of 
both the Navy and the Marine Corps. As I said in my opening 
statement, I am--and I mean this very sincerely--honored and 
humbled by this opportunity, not the least of which, of course, 
is the large shoes to fill that you have set in the Under's 
position in the Department of the Navy. But I agree that 
communications are critical. I came from a military background 
and I can assure you that I will perpetuate every opportunity 
for very close communication with our men and women in uniform.
    Senator Warner. I was running a rough calculation, if your 
father is 83----
    Ms. Livingstone. Yes, sir.
    Senator Warner.--that means he joined the Army Air Corps in 
World War II. Would that be correct?
    Ms. Livingstone. That's correct. Actually he called my mom 
up and enlisted without telling her before he left home in the 
morning. Then she followed him around for the next couple of 
months and from place to place as he went through different 
kinds of training. But he, of course, ultimately ended up in 
the Air Force after the Army Air Corps.
    Senator Warner. That is wonderful. That is a great heritage 
that you have. My father served as a doctor in World War I in 
the trenches and is an inspiration to me. But so much for that. 
Let's turn to the Osprey, the Marine Corps aircraft. This is a 
joint question to both of you. I will let Mr. Christie lead 
off.
    The panel of witnesses which sat at that very table before 
this committee some several weeks ago was asked if it could 
make an impartial evaluation. They did a great service to the 
country and particularly to the Marine Corps in putting into 
perspective where we are in this complicated aircraft system 
and where we should go in the months and years to come. I am 
prepared to support the recommendations of that panel. I wanted 
to know, Mr. Christie, if you have had an opportunity to review 
it?
    Mr. Christie. I have looked over the briefing that was 
presented here by the panel and do support their 
recommendations. In fact, I do believe that the Under Secretary 
of Defense for Acquisition, Technology, and Logistics is 
working with the Navy to develop a revised program that will do 
the necessary testing, that perhaps we skipped, in order to 
address the deficiencies that we found in the earlier testing 
before we proceed with any full production or deployment 
decision. If confirmed, I assure you that I will be part of 
those deliberations, assessing whether that testing will be 
adequate to fulfill the requirements that are laid down.
    Senator Warner. In that context, during the course of the 
hearing towards the end, the issue of the dissemination of 
operational test information was looked into by the committee. 
We did not bring to closure exactly what happened. But there 
were some allegations to the effect that the program manager 
did not receive full information. I do not think there was 
anything intentional done to circumvent the rules and 
regulations, but I do think there should be absolute clarity as 
to how this information is distributed and shared.
    There are tendencies, I think, by the services to push a 
program because of the oftentimes desperate operational 
requirements to have this system in an operational status. But 
you have to resist that. You have to make sure that the result 
of test and evaluation is known to all that have a degree of 
responsibility. Could you give me that assurance?
    Mr. Christie. Yes, sir.
    Senator Warner. You will clarify those rules? Because there 
was something in here----
    Mr. Christie. I am aware of some ongoing negotiations or 
some interactions with this committee staff to look at whether 
a new policy should be promulgated in the Department.
    Senator Warner. We have isolated the problem, and Ms. 
Livingstone, I want you to work with Mr. Christie on it. It 
comes with the normal responsibilities of the Under Secretary.
    Ms. Livingstone. Senator Warner, I would be pleased to do 
so if both of us are confirmed and agree that we have a major 
issue and challenge before us in terms of restoring the trust 
and confidence in the Osprey program. We will work with 
Congress, OSD, and the pilots and the maintainers to do that.
    Chairman Levin. Senator Nelson has been kind enough to 
yield to Senator Carnahan even though Senator Nelson was here 
first, because of her commitment. Senator Carnahan.

               STATEMENT OF SENATOR JEAN CARNAHAN

    Senator Carnahan. Thank you very much, Mr. Chairman. I just 
want to thank you for inviting me to this hearing. I am eager 
to rejoin this committee as soon as possible and I am looking 
forward to working with you and Senator Warner on the 
challenging issues ahead. In the meantime, I want to----
    Chairman Levin. Excuse me for interrupting. If I may, for a 
second, that may be a bit of an in-joke that our audience is 
not totally in on, so we might explain that until we have a new 
resolution of organization in place, members that joined the 
committee this year are technically not on the committee. But 
we have welcomed them to participate in these hearings and, of 
course, any vote that we have will hopefully take place after 
they have ``rejoined'' the committee. But we can assure you all 
that we consider you full members.
    Senator Warner. I assure you, I fervently desire to have 
you specifically stay on this committee.
    Senator Carnahan. Thank you very much.
    Senator Warner. You have a been a valuable member and we 
very much want you to remain.
    Senator Carnahan. Thank you. I want to welcome our 
distinguished panel to the committee hearing today. I am 
delighted to hear your testimony and I am looking forward to 
working with you on issues affecting our Navy and U.S. 
Departments of Energy and Defense. At this time I would like to 
direct my comments specifically to the nominee for Assistant 
Secretary of Energy for Environmental Management.
    I enjoyed meeting with Ms. Roberson yesterday about an 
issue that is of great concern to us in Missouri and that is 
the cross-country shipment of nuclear waste through Missouri. 
As some of you may know, the Department of Energy's 
Environmental Management Program, which Ms. Roberson will 
oversee in her new role, is responsible for managing the 
disposal of spent nuclear fuel in this country. This includes 
both foreign and domestically produced nuclear waste. For the 
past several years the DOE has been making cross-country 
shipments of foreign nuclear waste. They plan to do another 
shipment in the near future. This shipment is scheduled to 
cross Missouri's I-70 right through two major metropolitan 
areas of St. Louis and Kansas City.
    What we have asked the DOE repeatedly is if it makes sense 
to ship this waste on this route versus shipping it on another 
route where perhaps the roads are better, or on one that avoids 
major metropolitan areas. We want proof that this is the safest 
determinable route. We have asked the DOE to prove to us that 
it is, in fact, the safest route, prior to the shipment coming 
through our state.
    So, Ms. Roberson, as I said to you yesterday, I sent a 
letter to Secretary Abraham on May 25 asking if the Department 
of Energy had conducted a peer review of its route selection 
process. If so, I would like to know who conducted it and what 
the results were. If not, I would like to request that such a 
peer review be conducted. I would also like to have the general 
cooperation of the Energy Department and especially the 
Environmental Management Program that you will oversee in 
working with us on these kinds of route selections, analyses, 
and decisions.
    We are not trying to be obstructionist here. We are only 
saying prove to us that your route determination for shipment 
of nuclear waste is, in fact, based on careful and rigorous 
analysis. Considering the seriousness of this issue to the 
people of Missouri, I firmly believe this is only fair to 
expect, and I hope you will work closely with us on this issue. 
I would welcome your comments on this subject today.
    Ms. Roberson. Senator Carnahan, thank you for the question. 
I too enjoyed our meeting yesterday. My understanding is that 
there has been a peer review conducted and that the Department 
of Energy is working expeditiously to respond to your letter. I 
would like to commit to you--or demonstrate to you--my 
commitment to work with you and the Governor of Missouri to 
make sure that we address your safety concerns and those safety 
concerns across the country as we pursue this program. I will 
be open and transparent in those interactions and you certainly 
have my commitment to work with you.
    Senator Carnahan. Thank you very much. I appreciate that. 
Thank you, Mr. Chairman.
    Chairman Levin. Senator Reed, it is a pleasure to call upon 
you as always.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman. Thank you ladies and 
gentlemen for your testimony. Mr. Christie, you answered a pre-
hearing question on acquisition streamlining related to spiral 
development and its relationship to weapon system testing. Do 
you believe that the approach of testing this spiral 
development program could or should be applied to the fielding 
of commercial off-the-shelf technology in weapons systems or 
administrative support systems?
    Mr. Christie. I think so, Senator. One thing about spiral 
development--if I may make a comment--perhaps it is becoming a 
little bit of a buzz word, but it is a way of getting new 
technology into the field faster. We have to be careful that 
what we introduce into the field at the end of one spiral and 
before we go one to another one is in fact useful and effective 
for the user. I do believe that test techniques that are being 
used in the systems that are in that context are being used for 
commercial off-the-shelf equipment.
    Senator Reed. Thank you, Mr. Christie. Mr. Christie, let me 
turn my attention to another issue. Prior to his departure, 
your predecessor, Mr. Coyle, looked at the testing program for 
the National Missile Defense in the Ballistic Missile Defense 
Office and recommended a significant increase in the robustness 
in the testing, in the number tested, and the challenges 
inherent in the testing. Would you continue that effort, which 
I believe, is critical?
    Mr. Christie. Yes, sir, Senator. I am not familiar at this 
point in time with what the administration is developing in the 
way of a new National Missile Defense Program. Mr. Coyle's 
assessment was, of course, based on the previous 
administration's primarily land-based interceptor program. As 
soon as the Department has come together with their strategy 
for National Missile Defense, and if confirmed, I'm sure that I 
will be involved in working to ensure that proper testing or 
robust testing is planned and executed before we make decisions 
to deploy such a system.
    Senator Reed. While I think that is absolutely critical and 
seems to be obvious, sometimes the obvious in Washington is not 
a reality. This is one of the more challenging technological 
endeavors that we have engaged in in many years and if we 
proceed forward with the land-based system, the current 
architecture, that requires increasingly more sophisticated and 
challenging testing. If we move to other architecture we are 
starting close to ground zero. So, I would assume that you 
would be intimately involved and I would urge you to be very 
demanding in the testing.
    Mr. Christie. If confirmed, I will do so, sir.
    Senator Reed. So far you are doing pretty well. Let me turn 
my attention to Ms. Roberson. Ms. Roberson, there is consensus 
that the Department of Energy's budget request for fiscal year 
2002 is about $1 billion short of the amount required to keep 
the DOE current on all of its enforceable commitments to the 
states and to the EPA. Now if the supplemental or amended 
budget request does not address this funding shortfall and you 
are confirmed, how do you plan to deal with these issues? In 
effect, how do you plan to keep DOE in compliance with state 
judgments and Federal judgments?
    Ms. Roberson. Senator Reed, if confirmed, one of the first 
tasks that I will undertake, which Secretary Abraham is 
committed to, is a complete review of the Environmental 
Management Program. That program recently celebrated its 10-
year anniversary. So, we have 10 years of successes and 
disappointments to learn from to advance the program in the 
future. I believe that we will identify opportunities to aid 
and complete our clean-up activities in a more expeditious way. 
However, I am committed to working with this committee and 
Congress to make sure that we spend the budget that is 
allocated for this program, once that budget process is 
complete, in an efficient and effective manner.
    Senator Reed. Part of your job is certainly to spend the 
money that is appropriated but I would assume in other parts to 
advocate within the Department of Energy and within the OMB and 
within the administration and even within Congress for 
sufficient funds. This seems to me to be a case which is quite 
compelling. There are judgments and outstanding Federal 
requirements that we have to meet and we are about $1 billion 
short. I presume--it is obvious you recognize that--and I would 
hope that you could see that we follow through on our 
commitments to the states and the EPA.
    Ms. Roberson. If confirmed, Senator, it is my goal and my 
commitment to work with the parties involved to make sure that 
we satisfy our environmental obligations as committed.
    Senator Reed. One of the challenges you face, Ms. Roberson, 
is to deal with other agencies, among them the National Nuclear 
Security Administration, in order to carry out your 
responsibilities. Could you just briefly indicate how you view 
your relationship and what you will do to provide for an 
integrated approach to the challenges at the DOE?
    Ms. Roberson. Senator Reed, quite frankly, as a result of 
being a member of the Defense Nuclear Facilities Safety Board I 
have had the opportunity to see where those opportunities exist 
across the complex. I have met with General Gordon and I 
believe that we will have a very positive working relationship. 
I do not think that there will be any difference in the goals. 
Where our goals meet, they are very much aligned and I believe 
I will have a very good working relationship with General 
Gordon and his staff.
    Senator Reed. Thank you very much. Mr. Chairman, my time is 
up. I have one additional question, if I may.
    Chairman Levin. Go ahead.
    Senator Reed. Thank you, Mr. Chairman. Thank you, Senator 
Warner. Ms. Livingstone, currently the Navy is considering a 
conversion of Trident submarines. How do you feel about that 
conversion process? Could you elaborate on it?
    Ms. Livingstone. Senator Reed, I wish I could elaborate, 
but unfortunately, I have not been briefed. I am not yet 
confirmed and have not been really briefed on the program. It 
is something, however, I recognize as an important program area 
and I certainly will work with Secretary England and the 
Department of the Navy to get up to speed as quickly as 
possible, if I am confirmed.
    Senator Reed. Sorry, I should ask you questions about the 
Army then because you are fully conversant on the Army. 
[Laughter.]
    Ms. Livingstone. I was an Air Force brat and I worked for 
the Department of the Army and now I am honored to work on 
behalf of the Navy and the Marine Corps, if I am confirmed. But 
you have to say the Navy and Marine Corps are air, sea, and 
land, so we have it all covered.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed. Senator Reed 
raised a number of questions that I want to pursue and get a 
little more assurance on. I think these are really important 
areas that he has opened up. First on the question of the 
Department of Energy's budget request for 2002, as he pointed 
out, it is, we believe, about $1 billion short of the amount 
that is necessary to keep the DOE current in its commitments. 
These are legally binding commitments to states and to the EPA. 
You have indicated that you will spend the budget allocated and 
will seek an adequate budget. Those are the assurances you gave 
to Senator Reed and those are very important. Do you agree that 
there is a shortfall?
    Ms. Roberson. Mr. Chairman, I really have not had the 
opportunity to look at the details of the budget and work with 
the site managers and the contractors responsible for 
implementing those. So, I am really at a disadvantage to answer 
that question.
    Chairman Levin. Fair enough. I expect and hope you will be 
promptly confirmed. Will you get back to this committee after 
you are in office with your assessment of that issue, of that 
problem?
    Ms. Roberson. Absolutely.
    Chairman Levin. Let us know whether or not after you have 
had a chance to look at it if you believe there is a shortfall. 
We need your opinion. Whether or not you get the money from 
OMB, we need your commitment to give us your opinion on that.
    Ms. Roberson. Yes, sir.
    Chairman Levin. Mr. Christie, Senator Reed asked you about 
testing the National Missile Defense system to make sure that 
you will continue your predecessor's determination that the 
testing be robust and realistic. You made a commitment that you 
would do the same.
    Mr. Christie. Absolutely.
    Chairman Levin. I assume then that it would include a 
commitment that if the operational testing and evaluation of 
the National Missile Defense system does not demonstrate that 
the items and the components tested are effective and suitable 
for combat, that you would then recommend against acquisition 
or deployment.
    Mr. Christie. Mr. Chairman, I view my mission or my 
responsibility to be one of reporting to the Secretary of 
Defense and to Congress the test results and whether or not the 
system was operationally effective, suitable, and survivable in 
the tests that were conducted, and that those tests were in 
fact robust enough or adequate enough to reach that conclusion. 
It is not my responsibility, in my view, to recommend that we 
deploy or not. That is, in fact, a decision that is to be made 
by the Under Secretary of Defense for Acquisition, Technology, 
and Logistics and in this case, no doubt, the Secretary of 
Defense and the President. I will just lay the facts on the 
table: here are the test results; here is my view of the tests 
that were conducted and how realistic they were, how robust 
they were. That decision on deployment or acquisition is in 
other hands.
    Chairman Levin. Fair enough. Do you believe that the 
program that you have described from operational testing and 
evaluation for the National Missile Defense system includes the 
use of countermeasures?
    Mr. Christie. Yes, sir, it will.
    Chairman Levin. I guess the most important point is you 
have given us the assurance, which is so essential, which is 
you are just going to tell it like it is.
    Mr. Christie. Yes, sir. I may not last long, but I will 
tell it like it is.
    Chairman Levin. Mr. Christie, I have a question on Army 
transformation. The National Defense Authorization Act for 
Fiscal Year 2001 requires the Secretary of the Army to conduct 
a comparative evaluation of the interim armored vehicles 
selected for the fielding of the interim brigade combat teams 
with equipment that is already in the inventory. The law 
requires that the evaluation plan, including the sizes of the 
units involved in the evaluation, be approved by the DOT&E. 
Last month the acting DOT&E approved an evaluation plan for 
side-by-side testing at the platoon level. Do you agree that an 
evaluation of platoon level missions is sufficient for such a 
new and unique unit that is designed primarily for operations 
at the brigade level?
    Mr. Christie. My understanding of what has been looked at 
or has been approved, by the acting DOT&E, is that this will be 
a company-size unit as to the numbers of vehicles in the side-
by-side comparison carrying out missions that are at the 
platoon level. I think the feeling is--and I have not looked 
into this in enough detail to form my own thoughts that it 
would be sufficient to enable a good assessment of the 
differences in the vehicle and to provide information to 
decision-makers as to whether they should proceed with one or 
the other. I believe that, if we go on with the IAV into IOT&E, 
it would of course be a much larger test. But right now I 
believe the side-by-side comparison is 13 or 14 vehicles, which 
is a company-level vehicle unit, but they will be carrying out 
platoon-level missions.
    Chairman Levin. After you review the decision, after you 
are confirmed, would you take a personal interest in providing 
the oversight for the conduct of the operational comparison?
    Mr. Christie. Absolutely. Certainly.
    Chairman Levin. Senator Warner.
    Senator Warner. I want to follow-up. That is a very 
important inquiry that our Chairman has brought up. The Army 
certainly needs this transformation but the selection of the 
particular vehicle is subject to a great deal of controversy 
right now. It is an enormously expensive system. I really think 
that this is among the five major responsibilities--missile 
defense, this, the Osprey--that you have to bear down on. I 
would hope that you could expedite this situation. We will have 
to address it in the 2002 budget and any preliminary 
information you could supply to this committee would be a great 
help to us. We want to do the right thing by the Army. It has 
to be right. It has to be fixed, and has to be fixed right. So, 
I wish you luck on that.
    Mr. Christie. Thank you, sir. If confirmed, I commit to 
getting into this personally.
    Senator Warner. It is a top priority. Give us interim 
reports on it.
    Ms. Livingstone, of course, the number of ships in the Navy 
is always a matter of great concern. You will be directly 
responsible for a lot of the shipbuilding and contracting and 
you will work with the Secretary on the budgeting. All 
indications are that our Nation is falling short on laying the 
plans today, tomorrow, and in the future for an adequate number 
of hulls to carry out the missions, which our Navy must carry 
out. The sea lanes of the world are the arteries of this Nation 
not only in terms of our national security but indeed in our 
ever-expanding trade with nations abroad. The protection of sea 
lanes is absolutely imperative. So I presume you are going to 
go to work on that early on.
    Ms. Livingstone. Senator Warner, absolutely. I share your 
concerns about the current rates of shipbuilding not only in 
terms of the implications it has for combat capability and 
readiness, but also in terms of the business aspects of it in 
the economies of scale and production efficiencies and also the 
impacts on the shipyard industrial base. I look forward to 
working on that issue with Secretary England and also within 
the context of the strategic reviews ongoing and in the 
Quadrennial Defense Review.
    Senator Warner. Good. Ms. Roberson, on behalf of Senator 
Allard, I am going to submit a very detailed question to you 
regarding the Rocky Flats situation and ask that you provide a 
response for the record.
    Another question, you have stated that ``sound science and 
innovative technology are critical to solving the complex 
technical problems that the Department faces including up to 
the DOE complex.'' You have also acknowledged that the EM 
Technology Development Program has experienced problems in 
transferring cutting edge research to DOE clean-up and waste 
management sites. How do you view your role in ensuring that 
science and technology activities are responsible to on-the-
ground needs identified in the field and then the users that 
participate in all aspects of technology decision-making from 
planning through deployment? You can amplify your response to 
that rather technical question in the record, but if you could 
give us a preliminary, I would appreciate it.
    Ms. Roberson. Senator Warner, if confirmed, I will be 
responsible for ensuring that integration occurs and having 
been a field manager on the other end as a client and recipient 
of technologies, I think I understand quite clearly how that 
relationship has to work to be effective. I will work with the 
staff in the Department to ensure that those areas of 
improvement are implemented, and then I will provide a more 
detailed response to you.
    Senator Warner. I wish you luck. You have a real challenge. 
I serve on the Senate Environment and Public Works Committee 
and, therefore, have another oversight responsibility for the 
clean-up of America's distressed sites. I really think we have 
to assign priority to those sites that have the potential to or 
are actually contributing to a degrading of the quality of life 
on a real-time basis. Many of the military sites are basically 
dormant so far as we know. Now scientific evidence may show 
leakage into the underground water system and things that are 
not apparent on the surface. I think you are going to have to 
prioritize your clean-up operations with your budget and how 
urgent it is with respect to the quality of life. I hope you 
exercise sound judgment and flexibility and petition your 
Secretary, whom I know very well and is a wonderful man, to 
give you some leeway in how you proceed on these issues.
    Now, Ms. Livingstone, this is a question that is 
interesting. I greeted this day, as most of us do, listening to 
the news of the world and also the news here at home. Our air 
traffic situation is in need. I will let you answer this for 
the record so you can sit back and relax--the air traffic 
situation is becoming desperate. Commercial air traffic is 
expected to increase 6 percent annually and military airspace 
use will also increase for the next generation of high 
performance weapons. As a result of the pressures associated 
with commercial air traffic congestion, noise, and 
environmental concerns, the acquisition and use of special use 
air space has evolved into a challenging endeavor for all of 
the military departments. I want to put you on alert there 
because you are going to have to work to try and resolve that. 
It's not unlike Vieques, where you have the essential need for 
that training site to maintain our readiness and the same with 
our airspace here at home. Fortunately, we have not had a 
breakout of hostile viewpoints on this, but it is something you 
need to take a look at. With the commercial air system growing 
rapidly, it juxtaposes in many instances with our military 
requirements and airfields. Look at it and get ahead of the 
curve on this.
    Ms. Livingstone. Senator Warner, I appreciate your question 
very much and also appreciate the opportunity to respond for 
the record later on. It is an important issue, thank you.
    [The information follows:]

    As airspace needs change with the evolution of new weapons systems 
and tactics, the drastic increase in civilian aviation traffic, 
compounded by urban sprawl, remains a continued threat to the retention 
of current airspace assets and the expansion of those assets. 
Scheduling/using agencies of Special Use Airspace delegated to Navy by 
the Federal Aviation Administration continually evaluate this resource 
to assure that it is properly sized, both vertically and laterally, to 
support the mission for which it was designed. Navy currently has three 
proposals at FAA headquarters for approval and a small number of 
proposals in the early stage of development. Preliminary discussions 
suggest that these proposals, if properly documented, have an excellent 
chance for approval. To facilitate continued interagency cooperation, 
we continue to expend a considerable amount of time in cultivating 
relationships with senior FAA officials in Washington Headquarters and 
the Regional Offices.

    Senator Warner. Mr. Chairman, thank you. I think you are 
off to an excellent start. That completes my questions.
    Chairman Levin. Senator Warner, thank you. We thank our 
nominees and we congratulate you again. We look forward to a 
prompt confirmation and to your service.
    Ms. Livingstone. Thank you.
    Ms. Roberson. Thank you.
    Mr. Christie. Thank you, Mr. Chairman.
    [Whereupon, at 10:40 a.m., the committee adjourned.]

    [Prepared questions submitted to Susan Morrisey Livingstone 
by Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                      May 21, 2001.
Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Susan M. Livingstone.
cc: Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. I am committed to the complete and effective implementation 
of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been accepted and implemented. 
They have clarified the responsibilities and authorities of the 
Secretary of Defense, the Secretaries of the Military Departments, the 
Joint Chiefs of Staff, and the Chairman of the Joint Chiefs. As a 
result of these reforms, the effectiveness of our joint warfighting 
forces has improved.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I consider the most significant value of these reforms to 
be an improvement in joint warfighting capabilities. Our military is 
now stronger and more lethal because our Services can work better 
together. If confirmed, I will maintain and extend the Navy's 
commitment to the principles of joint warfare including 
interoperability and joint doctrine.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
                                 duties
    Question. Section 5015 of Title 10, United States Code, states the 
Under Secretary of the Navy shall perform such duties and exercise such 
powers as the Secretary of the Navy may prescribe.
    Assuming you are confirmed, what duties and powers do you expect to 
be assigned to you?
    Answer. The role of the Under Secretary of the Navy is to keep the 
Department on track and focused on the Secretary of the Navy's top 
priorities and keep him informed of any impediments to their successful 
completion. If confirmed, I will monitor and maintain those priorities 
and, in coordination with the SECNAV, if needed, take the lead on any 
item needing special attention, as well as perform any other duties 
assigned by the Secretary.
    Question. In carrying out your duties, how will you work with the 
Assistant Secretary of Navy for Manpower and Reserve Affairs; the 
Assistant Secretary of the Navy for Installations and Environment; the 
Assistant Secretary of the Navy for Financial Management and 
Comptroller of the Navy; the Assistant Secretary of the Navy for 
Research, Development and Acquisition; and the General Counsel?
    Answer. If confirmed, it is my intention to work closely and 
directly with the Assistant Secretaries of the Navy and the General 
Counsel to ensure the Department maintains a clear focus on the 
priorities outlined by Secretary-designate England consistent with the 
appropriate laws and Title X of the U.S. Code. I intend to encourage 
and foster teamwork within the Department of the Navy developing 
integrated product teams both within the civilian leadership and 
between the civilian leadership and their uniformed counterparts.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Secretary of the Navy and Under Secretary of the Navy?
    Answer. I agree with Mr. England that there are four major areas of 
challenge facing the Department of the Navy:

        <bullet> Combat Capability--The primary purpose of the Navy and 
        Marine Corps is to deter, train for, and when necessary, fight 
        and win our Nation's battles and wars. Combat capability, 
        including readiness, must therefore be the primary focus with 
        dedicated attention to the platforms, weapon systems, and 
        training needed by the Navy and Marines in the context of the 
        National Military Strategy.
        <bullet> People--The men and women of the naval forces team are 
        our most valued resource. Accordingly, if confirmed, I will 
        work diligently in support of ``quality of service'' which 
        includes both a quality workplace and quality of life for our 
        sailors and marines (both active duty and reserve), civilians, 
        and their families. An environment of excellence throughout the 
        Department should be the standard. We must also maintain faith 
        with those who came before: our retired community.
        <bullet> Technology and Interoperability--The foundation of our 
        military's strength lies in the application of advanced 
        technology. Currently, the application of advanced technology 
        is significantly lagging in its availability. We must become 
        far more agile in applying and leveraging the capability of 
        technology. We must improve the interoperability within and 
        between all of the military services and our allies.
        <bullet> Modernization of Business Practices--More effective 
        management processes must be applied and institutionalized to 
        systematically improve the efficiency of the Department of the 
        Navy.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. I will immediately work with the Secretary of the Navy to 
establish priority actions in each of these areas and then support him 
in initiating each as rapidly as possible.
                            ship acquisition
    Question. The Navy recently delayed two key ship acquisition 
decisions, T-AKE acquisition and DD-21 design selection. Regardless of 
the reasons for these delays, they raise questions about the Navy's 
ability to keep major ship programs on schedule.
    As Under Secretary of the Navy, how would you intend to ensure that 
the acquisition decision process possesses the discipline to adhere to 
established schedules?
    Answer. If confirmed as Under Secretary of the Navy, I will focus 
my attention in several areas to ensure that the acquisition process 
possesses the discipline to adhere to established schedules. I believe 
that the overall acquisition process must include:

        <bullet> stability of operational requirements for acquisition 
        programs which also recognize the rapid pace of technological 
        change;
        <bullet> stability of funding required to procure the ships 
        needed for the 21st century naval forces;
        <bullet> adequate staffing and training of acquisition 
        organizations responsible for performing the contract source 
        selections and life cycle management; and
        <bullet> effective communications between the Department of the 
        Navy, the Office of the Secretary of Defense, and Congress to 
        ensure understanding of the shipbuilding procurement plan and 
        prevent surprises on any shipbuilding program.
                          navy force structure
    Question. Navy operational commanders have testified that there are 
not enough ships to complete the tasks required and that the burden of 
this inadequate force structure is being borne by the men and women of 
the Navy and the Marine Corps.
    Do you concur with the operational commanders' assessments of the 
Navy's force structure versus operational commitment? If so, how would 
you address the mismatch? If not, what is your assessment?
    Answer. I have not had an opportunity to review the issue of Navy 
and Marine Corps resources versus commitments, but this is an area that 
certainly falls within Secretary-designate England's focus on combat 
capability. If confirmed, I will work closely within the Department of 
the Navy and, through the Secretary of the Navy, with the Secretary of 
Defense's staff and Congress, to ensure the men and women of our Navy 
and Marine Corps have the resources they need to meet current and 
future requirements.
                            industrial base
    Question. In recent years, several industrial suppliers of 
important weapons subsystems or components have decided to leave the 
market. This raises questions about the adequacy of the industrial base 
to provide key Navy and Marine Corps operational capabilities.
    If confirmed, how would you determine whether or not the industrial 
base is sufficient to support required Navy and Marine Corps programs 
and to ensure that the Department of the Navy is adequately tracking 
this industrial base?
    Answer. The Navy Department has a vital concern and interest in 
assessing and ensuring the industrial base's ability to develop and 
produce the weapons systems required for the 21st century. Therefore, 
if confirmed, one of my priorities will be to examine our Nation's 
industrial base to identify issues that may impact Navy acquisition 
programs and work with the OSD team and Congress to determine how best 
to resolve those issues. The health of the industrial base is a vital 
component of our future combat capability and readiness.
                          aircraft maintenance
    Question. The CNO has stated that in addition to quality of life 
issues, we must also be attentive to quality of service if we are to 
recruit and retain the sailors and marines we need. In the area of 
aircraft maintenance, the hours of maintenance dedicated to aircraft 
for each hour flown continues to rise as our aircraft continue to age. 
This aging aircraft problem is consuming more fiscal and human 
resources on an annual basis, and is often paid for by the RDT&E and 
modernization accounts that would replace the aging equipment.
    What are your views on this one aspect of quality of service, 
increased working hours for maintenance as well as aircraft 
cannibalization, and what do you think should be done about it?
    Answer. I am concerned about the increased hours that our sailors 
and marines are working to support the aging equipment that we have in 
our inventory. The key to reducing this impact is to establish a proper 
balance between the acquisition of new equipment, which helps reduce 
maintenance requirements, and properly funding the support elements for 
our in-service equipment.
                         organizational changes
    Question. The CNO staff was recently reorganized to create a 
Warfare Requirements and Programs division.
    Are there organization changes that you would recommend to the 
Secretary of the Navy regarding the staff that will support your 
decision-making?
    Answer. I understand that the Deputy CNO for Warfare Requirements 
and Programs (N7) has fit well into the current Department of the Navy 
organization. I don't anticipate recommending any additional changes 
until I have had the opportunity to closely observe the Department. If 
confirmed, I will work closely with the SECNAV in evaluating the 
Department's organization to determine if any additional changes are 
required.
                               readiness
    Question. Over the last few years we have seen increasing evidence 
that the readiness of the U.S. Armed Forces has begun to deteriorate as 
a result of the over-commitment of an under-resourced military.
    What do you view as the major readiness challenges that will have 
to be addressed by the Navy and Marine Corps, and, if confirmed, how 
would you approach these issues?
    Answer. I am concerned about the increasing stress placed on the 
people and equipment of our Navy and Marine Corps. In the near term, if 
confirmed, I will work with the Secretary of the Navy to identify 
actions that might help to balance the ``TEMPO'' stresses. In the 
longer term, we must ensure the naval forces are right-sized, trained, 
and equipped to meet the commitments that are placed on them. One major 
readiness challenge will be finding the resources to provide the proper 
balance between the modernization of our equipment and the support of 
the equipment that is already in place. Recruitment and retention also 
remain readiness challenges. Having the right measures and metrics is 
also critical to ensuring we identify thoroughly the resources needed 
to meet these readiness challenges.
                              encroachment
    Question. Some of the most significant issues that will impact the 
readiness of the Armed Forces as we enter the 21st century involve the 
Armed Forces' ability to operate and train effectively. The Senior 
Readiness Oversight Committee is currently reviewing several readiness 
challenges it has characterized as ``encroachment'' issues. These 
issues include environmental constraints on military training ranges, 
local community efforts to obtain military property, airspace 
restrictions to accommodate civilian airlines, transfer of radio 
frequency spectrum from the Department of Defense to the wireless 
communications industry, and many others. Unless these issues are 
effectively addressed, our military forces will find it increasingly 
difficult to train and operate at home and abroad.
    In your opinion, how serious are these problems for the Navy?
    Answer. Encroachment is a very serious problem. As encroachment 
grows, training and testing plans and procedures are impacted. These 
impacts include decreased days for testing and training, restrictions 
on the location and timing for testing and training, and limitations on 
the types of training available. The cumulative effect can diminish 
readiness. If confirmed, I will work with the Secretary of the Navy, as 
well as OSD and other federal agencies to seek resolve of specific 
encroachment concerns as well as assess the issue from a broader, 
overall policy perspective.
                         environmental security
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action, and those that 
will be out of compliance before the next budget cycle.
    Would you agree that continuing funding for this type of 
environmental cleanup is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. It is important that the Navy and Marine Corps maintain a 
positive relationship with local authorities and communities. In this 
regard, compliance with environmental protection requirements is vital 
and must be budgeted for appropriately. If confirmed, this is an area 
that will have my close attention.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of the environmental laws?
    Answer. In general, no. However, application of some environmental 
laws and regulations to militarily-unique training actions should be 
examined and may require some regulatory clarification to ensure 
national security.
    Question. Do you support the basic principle of the Federal 
Facilities Act and other laws that federal facilities, including DOD 
facilities, should be subject to the same standards as comparably 
situated civilian facilities?
    Answer. In general, yes. There may be circumstances where 
environmental regulations must be tailored to accommodate the unique 
military mission or special circumstances related to military training 
while balancing the need to ensure good environmental stewardship.
                                vieques
    Question. Over the past 18 months, naval forces deploying from the 
East Coast of the United States have been prevented from conducting 
live-fire training on the Navy's training range on Vieques, Puerto 
Rico, which has had a significant impact on the readiness of these 
forces to execute their wartime missions. An agreement was reached in 
2000 with the former Governor of Puerto Rico, and legislation passed to 
implement that agreement, which will provide economic incentives to the 
people of Vieques in return for their cooperation in the restoration of 
live-fire training. Unfortunately, the current Governor of Puerto Rico 
has stated that she will not abide by the terms of this agreement and 
that she will insist the Navy cease operations immediately.
    Recent press reports have quoted the President as saying that the 
agreement ``evidently is not satisfactory with the government of Puerto 
Rico'' and ``the Navy needs to find another base'' for Atlantic fleet 
training. In the past, Navy officials have stated that no such 
alternative is available.
    Do you agree with the Chief of Naval Operations and the Commandant 
of the Marine Corps that Vieques is essential to the readiness of East 
Coast naval forces?
    Answer. Yes. The Navy and Marine Corps have briefed me on the 
importance of Vieques to ensuring the readiness of naval forces. 
Integrated combined arms training and evaluation are an essential step 
to prepare deploying forces to perform any task the President may 
direct. Vieques provides an unequalled environment for this training 
and evaluation. That said, this is an issue that involves not just the 
Department of the Navy, but also OSD, the current administration, and 
Congress. If confirmed, my role in this issue will be to advocate the 
training needs of our naval forces.
    Question. If confirmed, would you ensure that the $40.0 million 
Congress appropriated to fund economic development and outreach 
programs on the island of Vieques is released and put to effective use?
    Answer. Yes, I will continue the Department's commitment to 
implement effective outreach and economic development in Vieques.
    Question. Does the Navy now believe that an alternative training 
site to Vieques can be located?
    Answer. Vieques provides a unique training environment to prepare 
deploying forces. President Clinton directed the Navy to examine long-
term alternatives for live fire training on Vieques. From the briefings 
I have received, that review is underway using the following 
operational criteria:

        <bullet> Availability of an air-to-ground live ordnance range 
        with tactically realistic and challenging targets and airspace, 
        which allow the use of high-altitude weapons delivery.
        <bullet> Availability of naval surface fire support range that 
        permits training of ships, forward spotters, and fire 
        coordination teams.
        <bullet> Ability to exercise combined arms amphibious 
        operations.
        <bullet> Availability of nearby naval and base support.

    At this point, it is unclear whether any such alternative could 
completely replicate the training and evaluation capabilities available 
on Vieques.
    Question. Does the administration intend to proceed with the 
November 2001 referendum?
    Answer. I cannot speak for the administration on that issue and 
must therefore defer that question to others. I understand that the law 
says a referendum must be held unless the Chief of Naval Operations and 
Commandant of the Marine Corps certify that the Vieques Training Range 
is no longer needed for training.
                         installation readiness
    Question. Based on your prior service as Assistant Secretary of the 
Army for Installations, Logistics, and Environment, your expertise will 
be important to the Secretary of the Navy especially as it relates to 
shore-based infrastructure. According to the General Accounting Office, 
by 1992 the military had accumulated an estimated $8.9 billion in 
deferred maintenance. By 1998, that had grown to $14.6 billion. It now 
exceeds $16.0 billion. Last year in his testimony before Congress, the 
GAO's Neil Curtain said, ``There really is a risk of losing the value 
of those (military) facilities. Real property maintenance is in 
disarray.''
    What priority would you place on installation readiness and 
eliminating this backlog in maintenance and repair?
    Answer. My past experience as Assistant Secretary leaves me well-
acquainted with the difficult challenges the military departments have 
faced to sufficiently invest in infrastructure. If confirmed, I will 
work with the Secretary on the Navy, the Assistant Secretary for 
Installations and Environment, the Chief of Naval Operations, and the 
Commandant of the Marine Corps to improve installation readiness so 
that it best supports the Department of the Navy's ability to 
accomplish its national defense mission.
    Question. What are your views regarding the transfer of real 
property maintenance funds to meet operational needs?
    Answer. I know from my previous experience that in preparing the 
Department's budget request, the Service Secretaries and the Secretary 
of Defense must make tough choices to balance competing demands. During 
budget execution, events can unfold that place severe financial 
pressure across the operating accounts.
    Question. Would you support fencing real property maintenance funds 
to eliminate the backlog in maintenance and repair?
    Answer. No. I believe we need to maintain financial flexibility 
during program execution to handle unexpected events.
                      base realignment and closure
    Question. Over the past several years, various departmental 
officials have testified that there is excess defense infrastructure 
and have requested Congress to authorize another round of base 
closures.
    Do you believe that we have excess defense facilities and, if so, 
where does this excess capacity exist?
    Answer. Once ongoing reviews are complete, a vision of how we must 
reshape the Department of Defense to best meet the threats of today and 
tomorrow to our Nation will be identified. Any discussion of where 
there may be excess capacity must await completion of these reviews, 
which will likely involve a shift in the focus and priorities of the 
military departments, including its supporting shore establishment.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
    1. Senator Warner. In September 1999, as a result of environmental 
and worker safety issues, the Navy began conducting ship disposal 
through the Ship Disposal Project. Since that time, the Navy has 
budgeted for the disposal of 3 to 4 ships per year. At that funding 
level, it could take about 12 years to dispose of the backlog of about 
47 obsolete Navy ships. These vessels are berthed in several locations 
around the United States, to include Portsmouth, VA. The communities in 
which these vessels are berthed recognize that the potential for 
environmental and navigational problems increases with length of time 
they are stored.
    Wouldn't you agree that it is important to develop a budget and 
plan that allows the Navy to complete the disposal of its obsolete 
ships in the near-term? When is it anticipated that the Navy will 
complete disposal of its obsolete ships?
    Ms. Livingstone. I would agree. In order to further reduce the size 
of the Navy's inventory of inactive ships in an orderly and cost-
effective manner, the Navy utilizes multiple ship disposal 
methodologies, including transferring ships to eligible foreign 
governments under the Arms Export Control Act, donating ships as 
memorials or museums, utilizing vessels as targets or for other 
experimental purposes, transferring title of certain merchant-type 
ships to the Maritime Administration under the Department of 
Transportation (MARAD) for disposal, and domestic scrapping. As of June 
7, 2001, the total number of stricken Navy ships available for disposal 
by all methodologies combined is 94 ships. The Navy expects to dispose 
of all but one of these ships by the end of fiscal year 2007, 19 by 
domestic scrapping and 74 utilizing the other methodologies. 
Additionally, 8 currently active ships are designated for scrapping 
upon their decommissioning through fiscal year 2007. Thus, the Navy 
expects to complete the scrapping of 24 conventionally powered 
destroyers and frigates by the end of fiscal year 2007.
                          resource protection
    2. Senator Warner. Maritime resource protection laws, Executive 
orders, and interpretations of Federal and state regulations have 
affected the conduct of maritime operations, test, and training 
activities.
    As Under Secretary of the Navy, what measures would you take to 
preserve fleet operations and training exercises under the current 
regulatory and statutory framework?
    Ms. Livingstone. I understand that the Navy has taken several 
positive steps in response to impacts from various laws, regulations, 
and Executive orders affecting maritime activities. This year, the 
Department of the Navy has been designated as the Department of Defense 
executive agent for maritime sustainability. This program, which will 
be implemented through the Office of the Chief of Naval Operations, has 
as its goal to achieve sustainable readiness in compliance with 
statutory and regulatory requirements. To that end, the Navy has 
adopted a strategy with four principal elements: sound legal position, 
knowledge advancement, consistent policy and procedures, and education 
and engagement. These pillars are being applied to solve some of the 
existing and future regulatory constraints facing service training 
within marine operational areas and ranges. I will support this program 
as needed to ensure continuation of fleet operations and training 
exercises.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
    3. Senator Thurmond. In recent testimony before the Subcommittee on 
Readiness and Management Support, Navy officials testified that the 
Navy's backlog of critical installation maintenance and repair was 
approximately $2.5 billion. The officials further testified that over 
33 percent of the Navy's base readiness reports reflect C-3 and C-4 
readiness ratings due to facility conditions.
    Based on your experience as the former Assistant Secretary of the 
Army for Installations, what are your concerns regarding this 
significant backlog in the critical repair and maintenance of Navy 
installations? What role will you assume in correcting this problem, if 
confirmed as the Under Secretary?
    Ms. Livingstone. Our inability to maintain Navy infrastructure at 
acceptable levels and the resulting backlog growth make it more and 
more difficult and costly to turn the corner on the chronic 
deterioration of our bases. Lack of sufficient maintenance funds also 
translates directly to morale, retention, and readiness problems. I 
look forward to closely monitoring our progress in arresting backlog 
growth, reporting continuous improvement in our base readiness reports, 
and exploring ways to accomplish these objectives in a more timely 
manner.

                              base closure
    4. Senator Thurmond. In response to the advance policy question on 
the need for additional base closures, you indicated that any 
discussion regarding base closure should be deferred until the 
completion of the strategic reviews.
    Although I appreciate your response, I would like your views on the 
process used for base closures. Do you believe the process used for 
prior base closures is appropriate? If not, what changes would you 
advocate?
    Ms. Livingstone. While the base closure process used in the past is 
not perfect, it has accomplished its primary intended goal--to close 
unneeded bases and remove excess and costly-to-maintain capacity from 
the Department of Defense. The criteria to evaluate the military need 
for installations and activities have been based on explicit standards 
established by Congress. Before the process begins, the data for 
analyses are obtained and verified by outside sources, the 
recommendations of the President are reviewed by an impartial 
commission, and communities are given the opportunity to participate. 
The all-or-nothing congressional approval keeps the focus on the 
overall picture; the process is based on a reasonable time schedule. In 
short, the process is fair and it has worked. That is a major 
accomplishment in comparison with the many previous failed efforts.
    In terms of improvement, I think there are opportunities to 
accelerate property cleanup and disposal. In some cases, communities 
have been slow to accept the closure decision and begin reuse planning. 
By the same token, the cleanup and disposal process by the DOD has been 
hampered by uncertainty over cleanup standards to meet reuse needs, 
lack of timely funding, and expensive cleanup costs. The needs of both 
can often be best met when cleanup and disposal are integrated into the 
construction phase of redevelopment.

                             privatization
    5. Senator Thurmond. It is generally assumed that privatization of 
functions performed by government employees achieves savings. Although 
I believe that in many cases there may be short-term savings, over the 
long-term these savings disappear as contracts are renegotiated.
    What are your views on the long-term savings realized as a result 
of privatization?
    Ms. Livingstone. The benefit of having a contract is the degree of 
control it provides the government in managing its business. Contracts 
can be re-competed to ensure the most economical price is provided for 
the requirement. Further, additional requirements cannot be assigned to 
a contract without defining the work scope and negotiating the price. 
This ensures the government is fully cognizant of the increase in 
requirements and additional cost to accomplish this requirement. 
Informed business decisions can be made with the factual understanding 
of the requirement and cost. Based on this information an acquisition 
decision can be made on the need for competition. Competition provides 
the baseline for determining the most cost efficient method to procure 
goods and services using the efficiency tools of privatization or 
competitive sourcing.

                             transformation
    6. Senator Thurmond. Based on your affiliation with the Association 
of the United States Army, I know you are familiar with the need to 
transform the Army to meet the challenges of the new strategic 
environment.
    Do you anticipate that the Navy will have to undergo some level of 
transformation to support the new threat environment? If so, what 
changes would you advocate?
    Ms. Livingstone. Transformation is a process of meeting strategic 
mission and capability requirements through major changes in 
operational concepts, technology, and organization. The Navy's 
transformation started in 1992 with publication of . . . From the Sea, 
commencing a strategic shift from the Cold War's emphasis first upon 
sea control and then sequential power projection ashore once the Soviet 
fleet was defeated, to today's simultaneous sea control and power 
projection directly ashore at the very initiation of conflict from the 
littoral.
    The key operational challenge for the U.S. Navy today and in the 
near-term is sustaining assured access to deny the ability of any 
prospective adversary to be successful in employing an area denial 
strategy. The key to sustaining assured access lies in the Navy's 
evolution from a platform-centric to a network-centric force. Naval 
forces already forward, properly programmed, will deliver the sustained 
assured access from the first day of conflict that is needed for joint 
forces to flow into theater to carry out U.S. military strategy. While 
no one service can assure access on its own, by dint of already being 
forward and immediately employable, the Navy plays a key role in 
enabling the rapid deployment of decisive combat power to the theater 
of operations.
    In the mid-term, geographically dispersed and interoperable naval 
forces will take advantage of network-centric operations to maintain a 
dominant military advantage, enhancing the Navy's ability to assure 
access when and where our Nation chooses to fight, and thereby 
deterring potential adversaries. The Navy will leverage its unmatched 
battlespace awareness with the capability to project offense ashore in 
effects-based attacks with vast volume from stealthy strike platforms 
and ``artillery from the sea'', holding even time critical targets at 
risk.
    In the far-term, the Navy transformation will result in a 
universally netted force of dispersed manned and unmanned systems that 
leverages knowledge superiority with improved lethality. With assured 
access now established in all warfare dimensions, forward deployed 
naval forces will play a vital role in dissuading potential adversaries 
from pursuing policies inimical to U.S. interests. The Navy will 
maintain sea superiority with directed energy weapons and project 
offense ashore with supersonic strike missiles and unmanned combat 
aerial vehicles.
    By maintaining sea superiority on, below, and above the sea, now 
and in the future, naval forces can continue to also project offense 
ashore--artillery from the sea, deep-land attack, and USMC operations 
ashore--and simultaneously project defense ashore with theater 
ballistic missile defense, all integrated through netted sensors that 
assures accuracy and lethality through knowledge superiority.
    All this said, the DOD is currently undergoing a series of 
strategic reviews and the Quadrennial Defense Review. If confirmed, we 
will need to assess how the Navy's current transformation plans fit 
within the context of revised national security strategy and national 
military strategy. In addition, I need to become more knowledgeable 
about the overall planned architecture for USMC-Navy joint operations 
for the 21st century.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                          joint strike fighter
    7. Senator Santorum. The Joint Strike Fighter is approaching a 
major decision point, with a source selection and entry into 
engineering and manufacturing development (EMD).
    Do you feel the program can receive the stable funding required for 
it to meet its goals in light of other programs competing for limited 
resources, e.g. F-22 in the case of the Air Force and F/A-18E/F in the 
case of the Navy?
    Ms. Livingstone. The Secretary of Defense is currently conducting a 
comprehensive strategic review of the Department's near- and long-term 
requirements. The results from that review will be incorporated into 
the Quadrennial Defense Review to provide the appropriate 
prioritization of our programs to meet those requirements. The 
allocation of Department resources will be based on that 
prioritization.

                                vieques
    8. Senator Santorum. Last year, the Navy and the Commonwealth of 
Puerto Rico negotiated an agreement concerning the Navy's use of the 
Atlantic Fleet Weapons Training Facility (AFWTF) at Vieques, Puerto 
Rico. A deal negotiated by President Clinton and Governor Rossello 
allowed for the Navy to resume training exercises with inert ordnance 
in exchange for an infusion of $40 million in economic development 
funds to the island and a promise for a referendum on a resumption of 
live fire training. If the residents of the island support a resumption 
of live fire testing, an additional $50 million will be provided by the 
U.S. government. If the residents of the island oppose a resumption of 
live fire testing, the Navy must leave by 2003.
    Do you believe that the Navy needs to train at Vieques? Do you 
support the Clinton-Rossello agreement that was negotiated last year? 
What will be the impact on the Navy's readiness levels if it is denied 
access to the AFWTF at Vieques?
    Ms. Livingstone. The central issue is effective training for our 
sailors and marines. The naval forces need and deserve the best 
training we can make available to them. I understand that although the 
Navy plans to discontinue training on Vieques in May 2003, they will, 
until then, continue to use the range facilities on Vieques in 
accordance with the mutually agreed upon restrictions on live fire and 
usage rates. I understand that the Navy is working to find alternatives 
to Vieques. While a 2-year timetable to find alternatives is certainly 
challenging, I believe it is reasonable and achievable. It is my 
understanding that this study on alternatives also will assess the 
impact on training readiness. The Clinton-Rossello agreement has been 
codified into law and is supported by the Department of the Navy.

                  ship depot maintenance requirements
    9. Senator Santorum. Last spring, during consideration of the 
Fiscal Year 2001 National Defense Authorization Act, Congress added 
$142 million for the Navy to maintain its ships. Then, last October, 
Congress was informed that ship maintenance availabilities were being 
canceled due to lack of ship maintenance funds. In a briefing to staff 
on the Senate Armed Services Committee, the Navy indicated that it was 
$283 million short in ship maintenance funding for fiscal year 2001. 
The October 12, 2000, terrorist attack on the U.S.S. Cole added another 
$150 million to that requirement. Using the Navy's numbers, this brings 
the total ship maintenance requirement shortfall for fiscal year 2001 
to $433 million.
    Please explain how the Navy estimates its yearly ship maintenance 
requirements. How is it possible for the Navy to have miscalculated by 
$283 million for its ship maintenance needs? Will you work to see that 
a more accurate method of projecting ship maintenance requirements is 
developed?
    Ms. Livingstone. The Navy estimates its yearly ship maintenance 
requirements using the best information available including historical 
execution data and estimated requirements of future needs. Engineered 
maintenance requirements, current ship material conditions, operational 
and maintenance schedules, and anticipated labor and material costs are 
components used to establish representative requirements for each 
planned CNO-scheduled ship availability.
    Programming estimates are made up to 2 years in advance of actual 
execution of ship maintenance. Unanticipated requirements such as 
increased private sector man-day rates, material and support costs, 
unplanned repairs, and chronic underfunding to less than 100 percent of 
requirements in ship maintenance accounts led to the shortfall in ship 
maintenance funding in fiscal year 2001. Additionally, Navy must often 
reallocate available funding to unplanned emergent ship repair 
requirements, creating shortfalls in planned maintenance 
availabilities.
    Navy has committed substantial resources to improving its estimates 
of ship maintenance requirements. I fully support these initiatives and 
full funding of all known requirements to prevent reallocation of 
funding in the year of execution. I will work closely with Navy 
leadership to provide the best information available about requirements 
to Congress.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                              naval forces
    10. Senator Collins. I believe that strong leadership is needed to 
address the declining naval shipbuilding rate and our shrinking 
industrial base. The numbers are very troubling to me. The U.S. Navy 
has shrunk from a fleet of 594 ships in 1987 to approximately 315 
today, while during the same period, deployments have increased more 
than 300 percent. Moreover, regional CINCs have repeatedly warned that 
the fleet is stretched perilously thin and needs to be increased to 
about a 360-ship Navy to meet the present mission requirements.
    At the current low rate of production, the cost per ship will 
increase and the efficiency at our yards will go down. The fact is that 
this administration and Congress will be faced with the challenge of 
rebuilding and recapitalizing the Nation's naval fleet. The numbers are 
just as clear as can be: at present rate of investment, our Navy is 
heading toward a 200-ship fleet, which is alarmingly inadequate.
    What are your thoughts on the need to increase the rate of 
production for our naval forces?
    Ms. Livingstone. I believe the rate of production needs to be 
increased. In order to maintain the 1997 Quadrennial Defense Review 
(QDR) battle force of approximately 310 ships per year, Navy must 
procure approximately 9 ships per year.

                                 ddg 51
    11. Senator Collins. In your advance questions, you address the 
issue of delays in the acquisition process and the impact of those 
delays on stability in acquisition programs. As you may know, this 
committee took the lead last year to authorize a follow-on DDG 51 
shipbuilding multi-year procurement for the period fiscal year 2002 
through fiscal year 2005 at the sustained rate of three ships per year.
    Could you comment on the benefits of utilizing multi-year 
procurement in mature programs, such as DDG 51, and the importance once 
a multi-year process has been initiated to sustain it for further 
requirements in order to continue to gain maximum cost efficiencies and 
other industrial base benefits that result from program stability?
    Ms. Livingstone. As I understand it, multi-year procurement (MYP) 
in mature programs ultimately strives to achieve affordability and 
workload stability. It does so by providing a stable business base and 
sufficient workload to various manufacturers, and second- and third-
tier vendors needed to justify enhanced capital investment and a long-
term commitment. MYP stabilizes the manufacturer and GFE industrial 
base resulting in:

        <bullet> Greater manufacturer and vendor efficiency and 
        improved overhead planning and capitalization, enhanced 
        viability of the manufacturers as well as other providers;
        <bullet> Continuous, stable construction of ships, aircraft, 
        and combat system components;
        <bullet> Stable employment levels and retention of skilled 
        labor;
        <bullet> Large lot or economic order quantity material 
        procurement which reduces the cost through volume discounts; 
        and
        <bullet> More efficient pre-production planning for one build 
        of multiple ships at each yard, rather than separate, annual 
        efforts.

                             dd 21 program
    12. Senator Collins. Recently, along with eight of my colleagues, I 
sent a letter to Secretary Rumsfeld highlighting the leap-ahead 
technologies and support that the DD 21 program will provide the Navy, 
if pursued. I don't know how familiar you are at this point with the DD 
21 program, but could you share with the committee your understanding 
of some of the real breakthroughs anticipated from this program: 
technology wise, in terms of acquisition process, in terms of 
dramatically reduced total ownership costs, in terms of littoral 
warfare and joint interoperability, improved quality of service/quality 
of life for our sailors, greater survivability, employment of stealth 
features beyond any current applications on surface ships, introduction 
of integrated power systems with electric drive and the greater 
maneuverability and endurance capability with that technology and any 
other aspects you would care to discuss.
    Ms. Livingstone. As I understand it, DD 21 will bring many unique 
capabilities to the fleet. These include a land attack warfare 
capability to meet USMC/JROC requirements for gunfire support for 
forces ashore; an Integrated Power System (IPS)/Electric Drive that 
provides electric power to the total ship (propulsion and ship service) 
with an integrated plant to reduce operating costs and improve 
warfighting capability and architectural flexibility; optimized manning 
through automation that will allow it to meet mission requirements with 
a significantly reduced crew size of 95-150 sailors while improving the 
sailor's quality of service; affordability resulting from DD 21's 
streamlined acquisition approach and significant cost savings through 
the use of advanced commercial technologies and non-developmental 
items; a new radar suite which provides DD 21 and other applicable 
surface combatants with affordable, high performance radar for ship 
self-defense; survivability improvements that will lead the Navy in the 
development of system and protection concepts that reduce vulnerability 
to conventional weapons and peacetime accidents under reduced manning 
conditions; and stealth design features which reduce acoustic, 
magnetic, infrared, and radar cross section signatures resulting in 
lower vulnerability to mine and cruise missile attack in the littoral 
environment in which it will be operating.


                              p-3 aircraft
    13. Senator Collins. Currently, the P-3 aircraft is an integral 
part of our current war plans, carrying out our patrol and 
reconnaissance missions. As you may be aware, however, the average age 
of the P-3 platform is roughly 25 years old. While aircraft avionics 
upgrades have kept the plane relevant and viable in today's threat 
environment, the airframe itself is reaching the end of its use service 
life. The CINCs have come to rely on the P-3 to perform their roles and 
missions on a daily basis, and a follow-on to the program should be 
pursued in the near-term.
    I am aware that an ongoing service life assessment program is 
studying the airframe fatigue life of the plane. I am also aware that 
there is an ongoing analysis of alternatives underway to look at the 
multi-mission aircraft (MMA) as a potential follow-on to the P-3 
program.
    What are your thoughts on the MMA program as a follow-on contender 
for the Navy patrol and reconnaissance missions?
    Ms. Livingstone. It is my understanding that the Navy and OSD 
continue to analyze a variety of options to fill CINC requirements 
currently filled by P-3 and EP-3 aircraft. The options include not only 
manned aircraft (i.e., MMA) but also innovative ways to provide part of 
the capability the CINCs need that do not require manned aircraft such 
as unmanned aerial vehicles. The analyses suggest that a manned 
aircraft is an essential element of filling the void created if P-3s 
and EP-3s are not replaced soon. I also understand that the Navy and 
OSD have examined both extending service life and remanufacturing the 
airframes as part of the analysis of alternatives. Preliminary results 
seem to indicate that new procurement may be a more economical solution 
than remanufacture of legacy airframes. Both the MMA and promising 
adjunct systems are to be further examined next year as a follow-on 
effort to the work already completed. If confirmed, I will work with 
the senior Department leadership to structure a program that meets 
warfighting requirements within fiscal constraints.
                                 ______
                                 
    [The nomination reference of Susan Morrisey Livingstone 
follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                       May 7, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Susan Morrisey Livingstone of Montana, to be Under Secretary of the 
Navy, vice Robert B. Pirie, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of Susan Morrisey Livingstone, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
              Biographical Sketch of Susan M. Livingstone
    For more than 30 years, Susan Livingstone has held demanding, high 
profile positions, both inside and outside of the Federal Government. 
She has headed five major management operations, served in three 
Federal departments (culminating in Presidential appointment/Senate 
confirmation as an Assistant Secretary of the Army), served as a vice 
president for the Nation's largest humanitarian organization, and held 
senior leadership, executive, strategic policy and planning, line 
management and operational roles.
    Mrs. Livingstone currently is CEO of the Association of the United 
States Army (AUSA) and deputy chairman of its Council of Trustees. She 
also serves as a vice president and on the Board of the Procurement 
Round Table, as well as consults on policy and strategic management 
issues.
    From December 1993 to October 1997, Mrs. Livingstone served as Vice 
President (Health and Safety Services) for the American Red Cross 
(ARC), responsible for leading and operating a major new strategic 
direction and restructuring of a $100 million gross revenue and profit 
center that provides health and safety, education to over 15 million 
people a year. From November 1996 to May 1997, Mrs. Livingstone also 
served as ARC Acting Senior Vice President, Chapter Services, declining 
to be considered for the permanent position. She served as a consultant 
to the ARC from October 1997 to March 1998. From April 1998 to August 
1998, Mrs. Livingstone served as a committee chairman and consultant to 
the 1998 Defense Science Board (DSB) Summer Study on Logistics 
Transformation and consulted on phase 2 of this D8B study from October-
December 2000.
    Prior to joining the Red Cross, Mrs. Livingstone worked for over 20 
years in the Legislative and Executive branches of the Federal 
Government, most recently, as Assistant Secretary of the Army for 
Installations, Logistics and Environment (November 1989 to January 
1993).
    As an Assistant Secretary of the Army, Mrs. Livingstone was 
responsible for oversight and policy direction for programs with $20 
billion in annual appropriations and employing over 125,000 people. Her 
responsibilities included the Army's military construction program, 
installation management program, logistics systems, chemical munitions 
stockpile demilitarization program, base realignment and closure 
program, energy and environmental programs, the Pentagon's support to 
domestic disaster relief, and the emergency reconstruction of Kuwait's 
public infrastructure following Operation Desert Storm.
    From 1981 to 1989, Mrs. Livingstone served in the Veterans 
Administration (now Department of Veterans Affairs) in several 
Assistant Secretary level positions, including Associate Deputy 
Administrator for Logistics and Associate Deputy Administrator for 
Management. During her service at the VA, Mrs. Livingstone's 
responsibilities included direction and management of the Nation's 
largest medical facility construction program ($1 billion annually) and 
the Federal Government's fourth largest procurement and supply program 
($4 billion annually). Prior to her executive branch service, Mrs. 
Livingstone worked for more than 9 years in the legislative branch on 
the personal staff of both a Senator and two Congressmen. From 1975 to 
1981, she served as an Administrative Assistant to a House member.
    Mrs. Livingstone is the recipient of the Army's highest civilian 
award (1993), the VA's highest civilian award (1989), two VA Unique 
Contribution Awards (1987 and 1988), and the ARC Special Achievement 
Award (May 1997). She received the highest performance ratings for all 
years of Federal service (1981-1993). She has spoken extensively 
throughout the United States and abroad, testified on numerous 
occasions before Congress, and appeared in a variety of print, radio, 
and television media.
    Mrs. Livingstone has an A.B. from the College of William and Mary, 
an M.A. in Political Science from the University of Montana, and spent 
2 years in postgraduate studies at Tufts University and the Fletcher 
School of Law and Diplomacy. She married Neil C. Livingstone in 1968.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Susan Morrisey 
Livingstone in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Susan Morrisey Livingstone--nee Susan Morrisey--Susan M. 
Livingstone--Susan Livingstone--Mrs. Neil (N.C.) Livingstone.

    2. Position to which nominated:
    Under Secretary of the Navy.

    3. Date of nomination:
    May 7, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 13, 1946; Carthage, Missouri (Jasper County--USA).

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Neil C. Livingstone--1968.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    High School--9/60--6/64--Summerville High School, Summerville, 
South Carolina. High School diploma received 6/64 (salutatorian). (My 
father was stationed at Charleston Air Force Base at the time.)
    Undergraduate--9/64-6/68--College of William & Mary, Williamsburg, 
VA 23185. AB received 6/68.
    Further undergraduate language study: 7/65-9/95--Georgetown 
University, Washington, DC.
    Masters--9/70-8/71--University of Montana, Missoula, Montana. 
Masters awarded either 12/72 or early 1973.
    Ph.D. Studies--9/71-5/72--Tufts University (NDEA Fellowship and 
Full Tuition Scholarship), Medford, Massachusetts 02155. No degree. 
Course credits transferred for further study at the Fletcher School 
(see next below).
    MA, MALD, Ph.D. Studies--9/72-6/93--The Fletcher School of Law and 
Diplomacy, Medford, Massachusetts 02155. No degree. Completed course 
requirements for MA, MALD and Ph.D. Wrote MALD (Masters of Arts of Law 
and Diplomacy) thesis. Passed Ph.D exams (4/18/78).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    11/89-/93--Assistant Secretary of the Army (Installations, 
Logistics and Environment), Department of Army, The Pentagon, 
Washington, DC 20310.
    1/93-12/93--Took time off (unemployed).
    12/93-10/97--Vice President (Health and Safety Services), American 
Red Cross National Headquarters, 8111 Gatehouse Road, Falls Church, 
Virginia 22042. From 11/96-5/97, I also served as Acting Senior Vice 
President for Chapter Services, American Red Cross.
    10/97-3/98--Paid consultant for American Red Cross division of 
Armed Forces Emergency Services, 8111 Gatehouse Road, Falls Church, 
Virginia 22042.
    From 3/98 to present, I have been working pro bono (volunteer)--
(see No. 11 below).

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    a. 1966-68--(STATE)--Researcher for the Philosophy Department, 
College of William & Mary.
    b. 2/69-8/70--(FEDERAL) Legislative Researcher--Senator Mark O. 
Hatfield.
    c. (1970-73)--Interim years in graduate school.

        9/70-8/71 (STATE): Graduate Researcher, Graduate Assistantship 
        and Full Tuition Scholarship, University of Montana.
        Summer 1972 (STATE): Wrote 2 film scripts for the State of 
        Montana (a travelogue on Helena, MT and a state film on mental 
        retardation).
        1971-72 (academic years): NDEA Fellowship and full tuition 
        scholarship, Tufts University.

    d. 9/73-1/81--(FEDERAL) Legislative Assistant and Press Secretary 
(9/73-8/75) and Administrative Assistant/Chief of Staff (8/75-1/81) to 
Congressman Richard H. Ichord.
    e. 1/81-7/81--(FEDERAL) Consultant to Congressman Wendell Bailey 
(part time pending Executive Branch appointment.
    f. 7/81-9/81--(FEDERAL) Deputy Director (Legislative Liaison), 
Community Services Administration.
    g. 11/3/81-11/81--(FEDERAL) Detailed to the Department of Health 
and Human Services to write the report on the closure of the Community 
Services Administration.
    h. 10/4/81-10/31/81--(FEDERAL) Detailed to the Small Business 
Administration to conclude close out of the Community Services 
Administration and initiate the close out report.
    i. 11/81-6/89--(FEDERAL)--Department of Veterans Affairs (then was 
Veterans Administration). From 11/81-2/85, I was Executive Assistant to 
the Associate Deputy Administrator for Logistics (VA). From 2/85-6/89, 
I was Associate Deputy Administrator for Logistics (VA). From 12/85-4/
86, I was dual-hatted as Associate Deputy Administrator for Logistics 
and Associate Deputy Administrator for Management.
    j. 6/89-11/89--Unemployed pending clearance for Assistant Secretary 
of the Army position.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    a. Consultant and Panel Chairman, Defense Science Board Summer 
Study on Logistics Transformation (Phase I: 4/98-8/98). Consultant to 
follow-on study (Phase II) 10/00-12/00.
    b. CEO and Deputy Chairman, Association of the United States Army 
(AUSA), 2000-present.
    c. Prior to above work with AUSA, I was on the AUSA Council of 
Trustees (1996-2000) and the AUSA Advisory Board (1994-96). I have been 
a member of the George Washington Chapter of AUSA since 1994.
    d. Member (1993-present) and a vice president (1999 or 2000-
present), Procurement Round Table, Washington, DC.
    e. Member, Advisory Board to the Martin Institute, University of 
Idaho, Moscow, Idaho. I was invited to be a member of this Board and 
accepted, but our first meeting was to be 5/2001, which I will not 
attend.
    f. I also have done pro bono work for American's Promise (wrote a 
marketing plan 5-11-98); wrote and consulted for ``The National Moment 
of Remembrance'' (2000); and served on as a volunteer representative of 
our apartment building to the rest of the apartment complex as well as 
served on our apartment ``architectural and engineering'' committee 
(1999-present).

    13. Political affiliations and activities:
    a. List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    b. List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    c. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    6/6/00--ASHCROFT 2000--$500.
    10/20/00--RNC VICTORY--$500.
    6/21/01--George W. Bush Campaign--$500.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Special Achievement Award, American Red Cross (May 1997).
    Army Distinguished Civilian Service Award (1993).
    VA Exceptional Service Award (1989).
    VA Unique Contribution Awards (1987 and 1988).
    NDEA Fellowship and Full Tuition Scholarship, Tufts University 
(1971-72).
    Full Tuition Scholarship, University of Montana (1970-71).
    Also in ``Outstanding Young Women in America'' (1979) and ``Who's 
Who in America'' (since 1989).
    Have received numerous other Federal awards, certificates, and 
recognitions (but never kept a list).
    Counselor (1964) and participant (1963), American Legion's Girls 
State (South Carolina).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    I was an occasional ``student'' reporter for the College of William 
and Mary student newspaper, The Flat Hat, from approximately 1966-68. I 
may have gotten several ``by-lines'', but this would need to be checked 
as it has been a long time. In the summer of 1972, my husband and I co-
authored some film scripts for the State of Montana: one was on mental 
retardation and one was a travelogue on Helena, Montana. In 1983, I had 
the following 2 articles published: ``Terrorism: The Original Cheap 
Shot--An Interview with Ambassador Diego Asencio,'' World Affairs, Vol 
146:1, Summer 1983, and ``Terrorism Wrongs vs. Human Rights--An 
Interview with Assistant Secretary of State Elliott Abrams,'' World 
Affairs, Vol 146:1, Summer 1983. Other than these, I have written 
numerous articles and/or given numerous speeches in association with my 
work in the Federal Government, at the American Red Cross, and my 
volunteer work with the Association of the United States Army. I also 
have appeared in the TV media in association with my Federal work. I 
have attribution on two Defense Science Board reports (both on 
``Logistics Transformation''), one was completed in 1998 and the other 
in December 2000. In addition, I wrote first drafts of two papers for 
the Procurement Round Table (1998 and 2000), one on outsourcing and the 
other on Federal acquisition reform in the 21st century.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given speeches at events at the Annual Meeting of the 
Association of the United States Army (but not with a formal prepared 
text) and these were more ``toastmaster'' in nature (1996-2000).
    I gave a number of speeches while I was at the American Red Cross 
(1993-1997) pertinent to my work area.
    I gave a speech before ``Women in International Security'' on 10/
24/96, on ``Presidential Appointments: Preparing for the Next 
Administration''. (I spoke from notes.)
    I gave a speech on ``logistics transformation'' in the Pentagon 
courtyard for Logistics Reform Focus Day (10/1/98), but do not have a 
final version.
    I also spoke at the Pentagon during Women's History Month on 
``Women at DOD'' (4/97) and spoke from notes.
    I was the guest speaker at the dedication of the Emilie Lawrence 
Reed Women's Imaging Center at Walter Reed Army Medical Center (6/12/
97).

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Susan Morrisey Livingstone.
    This 8th day of May, 2001.

    [The nomination of Susan Morrisey Livingstone was reported 
to the Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 19, 2001.]
                              ----------                              

    [Prepared questions submitted to Jessie Hill Roberson by 
Chairman Warner prior to the hearing with answers supplied 
follow:]


Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Jessie Hill Roberson.
cc: Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Energy for Environmental Management under 
current regulations and practices?
    Answer. In broad terms, these responsibilities include managing and 
overseeing the environmental restoration of contaminated soils and 
water, managing and disposing of waste created by past DOE missions, 
establishing the policy and procedures to promote safety and regulatory 
compliance, and supporting the development of new technologies to 
address unique cleanup and waste-management challenges.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Abraham would prescribe for you?
    Answer. If confirmed, I would be responsible for the duties and 
functions assigned to the position by law and regulation. I also would 
be tasked by Secretary Abraham to lead a top-to-bottom assessment of 
the program, in order to promote efficiency and accelerate efforts to 
complete cleanup projects and site closures. The assessment offers 
tremendous opportunities to review all aspects of work--ranging from 
contracting strategies to program and management efficiencies that 
could be gained based on recommendations of independent reviewers and 
the Office of the Inspector General, actual cleanup strategies using 
innovative technologies, and future land-use options.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the Assistant Secretary of Energy for Environmental Management and the 
Environmental Management Program?
    Answer. I believe there are two major fundamental challenges facing 
the Energy Department's environmental program: the pace and cost of 
cleanup. I believe the program has made progress to date in managing a 
number of highly complex projects and completing work in the field. 
However, recent baseline estimates indicate that it may cost over $200 
billion and take up to 70 years to complete cleanup at the Department's 
major sites. The Secretary has indicated that his goal is to do 
better--and to make every effort to cut these costs and get the job 
done more quickly. I support these goals.
    Question. Cleaning up the legacy of 50 years of nuclear weapons 
production and research is one of the toughest and most important jobs 
facing this country. These are some of the riskiest problems in the 
country, as well as the most technically complex and perhaps 
politically difficult. Assuming you are confirmed, what plans do you 
have for addressing these challenges?
    Answer. This review will look for opportunities to improve the 
effectiveness of the EM program by identifying opportunities for 
greater integration within EM, as well as opportunities to apply new 
technologies and efficiencies in our operations, eliminating redundant 
or unnecessary DOE requirements, and working with regulators and 
communities to prioritize our activities.
                           funding shortfalls
    Question. The majority of the Department of Energy (DOE) complex-
wide clean-up program is included in enforceable regulatory commitments 
made to Congress through the Defense Nuclear Facilities Safety Board. 
It now appears that the DOE did not obtain sufficient funding from OMB 
and therefore sites across the Nation may not be able to fulfill their 
binding commitments. How do you propose to meet the Department's 
legally enforceable commitments?
    Answer. The DOE is committed to meeting its legal obligations, and 
I am committed to find a way to do so. I also commit to look at all 
sites in the complex to find better ways to achieve the goals we share 
with Congress and the States.
                        plant closures and costs
    Question. The DOE's closure sites are dependent upon an integrated 
plan whose success depends on the interaction of multiple sites for 
storage and shipment of waste material. What are your views on the 
integrated plan and the technical, policy, and other barriers to 
accelerating closure?
    Answer. The Department has formulated an extensive baseline for the 
Rocky Flats closure project, which has been an important element in 
evaluating the technical, policy, and logistical challenges facing the 
Department in its Rocky Flats closure effort. This baseline is 
currently undergoing an external validation. If confirmed, I hope to 
expand upon this approach by making visible the interdependencies and 
required integration of all sites to achieve cleanup. The complex was 
operated in an integrated fashion when these issues occurred and must 
be operated in an integrated way to achieve a stepwise, but progressive 
cleanup.
    Question. An integrated and cooperative system across the EM 
complex must be maintained for the closure sites to remain on schedule. 
For example, to stay on their closure schedule, Rocky Flats needs to 
ship all of their plutonium metals and oxides to the K-Area at the 
Savannah River Site for storage. What would you do to ensure compliance 
and cooperation continue so there will not be a slow down in cleanup or 
delays in closure, at Rocky Flats, or any of the other closure sites?
    Answer. First, the DOE needs to ensure a greater level of 
integration of its activities, both within the EM program and among 
different departmental elements. Second, we need to demand 
accountability from the DOE's field managers and contractors to 
proactively identify problem areas earlier so that actions can be 
taken. Finally, the DOE needs a robust process to ensure that problems 
and challenges are addressed at an early stage, with less financial and 
schedule impact.
    Question. What can Congress do to make sure Rocky Flats and the 
Ohio sites are cleaned up and closed down according to their closure 
plans by 2006 or sooner?
    Answer. Congress' strong support of the DOE's efforts to close 
Rocky Flats and the Ohio sites have been key to keeping them on track. 
Your support for the President's fiscal year 2002 budget request for 
these sites will be critical.
    Question. Former Secretary Richardson implemented the notion of 
stable environmental funding applied to each site. Because this was 
done without regard to whether a site is an enduring site or a closure 
site it appears to lack an objective appreciation of complex-wide 
priorities. What is your long-term vision for the DOE complex regarding 
those sites with enduring missions as compared to closure sites?
    Answer. Every activity within the EM program should, at its core, 
be considered a closure project. Closure consists of three phases: 
first, stabilization and material removal; second, remediation and 
restoration; and third, stewardship. As I stated earlier, cleanup of 
these sites must be integrated and progress in a stepwise manner. 
Integration must include consideration of cleanup activities and their 
relationship to enduring missions. Our role is to reduce or eliminate 
the environmental risks and ensure long-term stewardship of the sites 
by meeting Federal and State requirements.
    Question. Does the decision to suspend plutonium immobilization 
activities at the Savannah River Site have any impact on the DOE's 
ability to ship plutonium from Rocky Flats to Savannah River, and thus 
the closure schedule for Rocky Flats?
    Answer. There is no issue delaying or impacting the shipment of 
waste to Savannah River. Nevertheless, I recognize and appreciate the 
concerns of the State of South Carolina regarding the status of this 
important activity. In this case, shipment of plutonium from Rocky 
Flats to Savannah River is an EM activity while plutonium 
immobilization is an NNSA activity. If confirmed, I would look forward 
to working with my counterparts in NNSA, as well as working closely 
with the State of South Carolina, to ensure that these activities are 
fully integrated.
                            workforce issues
    Question. There has been some indication that the DOE, in its 
efforts to achieve savings, may be looking at reducing requirements for 
worker safety. If confirmed, would you work to ensure that the safety 
of the workforce is never compromised?
    Answer. Yes.
    Question. As the DOE gets closer to the point in time when it will 
actually close sites, how would you propose to keep the workforce 
needed to close on schedule?
    Answer. The DOE needs to focus on policies aimed at retention and 
transition in order to keep the workforce we need. We need greater 
integration among the sites to ensure that we can optimize critical 
skills throughout the complex. It is my experience that retention and 
transition policies are not one size fits all. Different strategies are 
needed at different sites.
    Question. Do you believe some type of incentive system is 
appropriate, and if so, do you have any proposals for such incentives?
    Answer. Yes. It is my understanding that there are incentives in 
place at some sites for these purposes. If I am confirmed, I will 
review these programs carefully. I will also review the existing 
authority available to me to implement further incentives.
               environmental management strategic review
    Question. When the Secretary of Energy unveiled the budget for 
fiscal year 2002, he mentioned his plan to implement a top-to-bottom 
review of the Environmental Management (EM) program, also known as the 
EM Mission Assessment. If confirmed, what general outcomes and 
recommendations do you anticipate will come out of the Secretary's EM 
Mission Assessment?
    Answer. It would be premature to speculate or attempt to prejudge 
the outcomes of the review. The review will look for opportunities to 
improve the effectiveness of the EM program by identifying 
opportunities for greater integration within EM, opportunities to apply 
new technologies, efficiencies in our operations, eliminating redundant 
or unnecessary DOE requirements, and working with regulators and 
communities to prioritize activities.
    Question. If confirmed, would you commit to provide this committee 
with interim and final reports and recommendations from this review?
    Answer. Yes. If confirmed, I commit to informing and consulting 
with Congress as the review progresses.
                                funding
    Question. Over the course of the past year, the DOE has 
renegotiated or entered into new contracts at almost all EM sites. 
These contracts were designed to provide incentives to the contractors 
to do more work with less money, but were all predicated on a 
predetermined funding profile. Is the fiscal year 2002 budget request 
adequate to meet this funding profile, or will the DOE be forced to 
modify the terms and conditions of these contracts?
    Answer. At this time, I do not know if the fiscal year 2002 budget 
request will require modifying any DOE contracts. If confirmed, I will 
review these contracts and take the necessary steps to ensure that the 
impacts are minimized. The budget process for fiscal year 2002 is still 
ongoing, so it would be premature for me to speculate on the final 
outcome. I will keep this committee informed of any actions I consider 
necessary as a result of the final 2002 budget.
    Question. Must you renegotiate the various agreements and consent 
orders with the states and the EPA if the funding requested by the DOE 
for fiscal year is the amount authorized and appropriated for fiscal 
year 2002?
    Answer. The DOE is committed to meeting its legal obligations, and 
it is my commitment to find a way to do so. I also am committed to 
looking at all sites in the complex to find better ways to achieve the 
goals we share with Congress and the States. It is my hope that we can 
find more effective and more cost-effective ways to satisfy our cleanup 
obligations and to make concrete progress towards cleanup at all sites.
    Question. In the past, the Department of Justice (DOJ) took the 
position that all sums available to the Department were available to 
the Department's cleanup effort before the Department could claim that 
it had no funds to comply with enforceable orders and agreements. Do 
you believe that is still the view of the DOJ?
    Answer. I will work closely with the Department's General Counsel 
to ensure a coordinated strategy for complying with regulatory 
agreements.
    Question. Do you have any plans to stop taking surplus buildings 
and facilities from other components of the DOE? 
    Answer. The EM's mission makes it the logical program to manage 
surplus DOE facilities. However, to maintain focus on cleanup and 
closure work, a more structured and disciplined transition process may 
be necessary to provide for more timely characterization, cleanup, and 
funding plans. Any specific change in policy on this issue would have 
to come from Secretary Abraham.
    Question. What requirements would you place on the other DOE 
programs before you take additional facilities and buildings?
    Answer. Before contaminated excess facilities are transferred to 
the Environmental Management program, I would want to ensure that the 
current requirements for such transfers are met. If confirmed, I would 
like to examine this issue more fully to determine whether we are 
implementing the most effective program and that sufficient funding is 
available to ensure that we are not merely shifting a problem from one 
part of the Department to another.
                           management issues
    Question. There are a variety of complex issues facing the 
Environmental Management program, but one of the issues which has 
received criticism over the years is management. What are your views on 
the roles and responsibilities of Environmental Management field 
managers relative to those of Environmental Management headquarters 
managers? Do you favor more delegation of authority to field managers 
or less? What is your view of EM's organizational structure? Is there a 
smooth and consistent chain of command and reporting structure from the 
field staff to headquarters staff, from the contractors to DOE 
officials, and from the Office of Environmental Management to the 
Secretary of Energy and other DOE officials? Do the field offices have 
enough autonomy and flexibility to work with the contractors at the 
sites to get the cleanup finished in a safe and efficient manner? 
Should the field offices have more autonomy than they currently have?
    Answer. As a former field office manager, I am very familiar with 
the dynamics between the field offices and DOE headquarters. Both 
elements are important. However, it is important to balance autonomy 
with integration and authority with responsibility. The cleanup of the 
sites in the EM program will achieve mission success only if it is 
managed and carried out in an integrated fashion. The key to 
maintaining this healthy balance is in clearly defining the authorities 
and responsibilities of both elements, and avoiding overlapping work 
and a confusing command structure. I do believe strongly in a corporate 
approach to the EM program, and I intend to manage this program 
accordingly, if confirmed. The effectiveness of the current EM 
organization is something I can only determine and address after a 
period of daily observation.
    Question. The Environmental Management program has used a variety 
of contracting methods, including Management and Operating (M&O) 
contracts, performance-based or fixed-priced contracts, and 
privatization contracts. What is your view of these, or other, 
contracting methods, and what principles should the DOE follow when 
entering into EM contracts in the future?
    Answer. Different contracting models have different applications, 
and what works in one instance may fail in another. Success in EM is 
not dependent on a specific contract structure, but on competent DOE 
oversight and management of technically competent and capable 
contractors. Integral principles include a clearly defined and well-
understood scope of work, a defined duration for the accomplishment of 
that scope, a clear understanding of the expected result, sufficient 
understanding of the nature and depth of the problem, and technical 
sophistication on the part of the DOE officials charged with contract 
oversight.
                            closure projects
    Question. You were in charge of the Rocky Flats Field Office, when 
enormous progress was made towards its closure by 2006. What are your 
plans for implementing a closure strategy for the entire Environmental 
Management complex?
    Answer. I believe that the strategies that were successful at Rocky 
Flats are instructive for other sites, but are not necessarily 
solutions that will apply everywhere. However, I also believe that 
there are a number of factors that should be considered as the 
Department develops its cleanup strategies. First, cleanup priorities 
should be risk-based, ensuring that the highest risks receive priority 
attention. Second, it is important to establish and reach agreement on 
the end goals. These goals will focus activities and help to prevent 
disagreements on a small number of issues from hampering progress on 
the majority of issues. Third, contracts and contractors that are 
dedicated and properly incentivized and focused on achieving results 
must be in place at every site. Fourth, the Department's regulators and 
stakeholders must be fully involved in the Department's cleanup 
decision-making processes. Compliance is important but needs to be 
results-oriented, flexible, and recognize the constraints on the 
Federal budget. Short-term, enforceable milestones with long term 
policy goals for site cleanup are a way to achieve this. Fifth, 
building trust is critical to successful relationships. The Department 
needs, through its actions and by keeping its commitments, to earn the 
trust of its regulators, stakeholders, and Congress. At first, trust 
will have to be earned slowly. But over time, this will lead to 
productive and cooperative relationships with the regulators and 
stakeholders.
    Question. At Rocky Flats, the contractor implemented a plan which 
incorporated environmental, safety, and health (ES&H) responsibilities 
and accountability directly to the line workers themselves. This 
removed a separate group of DOE staff who had previously provided ES&H 
oversight at Rocky Flats and who currently provide such oversight at 
other EM sites. Please describe the benefits or detriments of assigning 
ES&H responsibilities directly to the cleanup workers.
    Answer. A strong safety culture must be infused through every layer 
of DOE and contractor employees, and direct ES&H responsibilities help 
create this culture. The workers themselves are the first line of 
defense for safety, balanced by independent oversight and enforcement. 
A key challenge for managing each site and the overall program is 
striking the appropriate balance between empowering the frontline and 
maintaining sufficient independent oversight.
                          regulatory framework
    Question. Numerous laws, DOE rules, DOE orders, and DOE policy 
guidance have created an enormous body of law and policy with which the 
EM sites must comply. Many of these laws and policies have become 
outdated, obsolete, or inconsistent due to technical errors. Do you 
believe these existing laws and policies are harmful to the goals of 
the closure projects and the broader EM program? What plan could be put 
in place by the DOE to catalogue outdated or inconsistent laws and 
policies? Is this issue being addressed in the top-to-bottom review of 
the EM program?
    Answer. Technology developments, research advancements, work 
control improvements, and changing site missions are a few of the 
factors constantly modifying the activities at DOE sites. It is 
essential for the Department and its contractors to review the 
applicability and relevance of both formal and informal requirements to 
keep pace with these changes. This important matter will be addressed 
in the top-to-bottom review.
            environmental management technology development
    Question. Please give us your views on the importance of a 
vigorous, national technology development effort within EM?
    Answer. Sound science and innovative technology are critical to 
solving the complex technical problems the Department faces in cleaning 
up the DOE complex. The Department needs to bring the best scientific 
and technological information and expertise to bear to solve these 
problems. This science and technology must be focused on the specific 
obstacles to achieving progress. The Department will need technological 
breakthroughs in order to get the job done, to improve system 
productivity, and to reduce the costs of many of the projects. The 
Department must use the considerable technological talent and resources 
available to better link research with ``on-the-ground'' cleanup needs.
    Question. Do you believe that EM can effectively meet its proposed 
cleanup and closure goals without a viable EM technology development 
program?
    Answer. No. Some of the challenges facing EM do not currently have 
solutions. New technologies must be developed to address these 
challenges in a responsible manner.
    Question. Please give us your views on the effectiveness of the EM 
Technology Development program and its current management? 
Specifically, do you believe that this program has been effective in 
transferring cutting-edge research to DOE cleanup and waste management 
sites?
    Answer. I believe that the EM Technology Development Program has 
experienced legitimate criticism. My impression is that the program is 
now beginning to realize the benefits of the investment. It is 
premature for me to offer an overall assessment of this program at this 
time. If confirmed, I will carefully review this program and identify 
ways to make it more effective in helping EM achieve its mission more 
effectively.
                        low-level waste disposal
    Question. What are your views on the use of commercial disposal 
options for DOE-origin low-level radioactive waste?
    Answer. There is great potential in using commercial facilities for 
low-level waste disposal, when it is cost-effective for the Department 
and is protective of public health and the environment. At Rocky Flats, 
the DOE made extensive use of such facilities during my tenure as Field 
Office Manager.
    Question. Do you support increased competition for low-level waste 
disposal contracts?
    Answer. I support any policies that will lead to the lowest cost 
for the taxpayer and that will provide for the DOE greater stability 
and diversity of disposal options. In this context, I believe that 
increased competition can play an important role.
    Question. Do believe the current policy encourages the DOE facility 
contractors to seek the lowest cost option, even if that option is 
utilization of a commercial disposal facility?
    Answer. It is my understanding that current policies do enable the 
DOE to choose the lowest cost option. If confirmed, I will review these 
policies and review how they are implemented to ensure that the DOE's 
overall waste management program is using the best mix of government 
and commercial facilities.
                             waste disposal
    Question. Are there any remaining issues with maintaining shipments 
of transuranic (TRU) waste or mixed-TRU waste to the Waste Isolation 
Pilot Plant (WIPP) which will delay or prevent completion of the 
closure sites by 2006?
    Answer. Based on my understanding of the WIPP program, I believe 
that the Energy Department can promote its efforts to accelerate waste 
disposal and close sites by streamlining the work that is being 
conducted under WIPP permits and regulatory requirements. I understand 
that the Energy Department and the WIPP program managers are also 
working with both the State of New Mexico and the Environmental 
Protection Agency to review the proposed permit as well as requirement 
modifications that could be made without compromising safety in order 
to promote effciency--and reflect the experience and knowledge gained 
from WIPP operations conducted to date. If confirmed, I will examine 
whether there are any additional steps the Department can take to 
support accelerated closure at the Department's sites.
                               compliance
    Question. Are there compliance issues at any of the EM or closure 
sites which will prevent the DOE from maintaining a focus on cleanup 
and closure?
    Answer. At this time, I am unaware of any particular compliance 
issue at any specific site that may be hindering a focus on cleanup. If 
confirmed, I will work closely with regulators, communities, and 
Congress to ensure that there is no conflict between compliance and 
progress towards closure.
    Question. The DOE's poor record on compliance has resulted in some 
states going or planning to go to court to enforce cleanup agreements. 
Subsequent orders have compelled the DOE to proceed with cleanup, but 
this process has resulted in the cleanup occurring in a costly and 
inefficient manner. The 3100 TRU waste issue at the Idaho National 
Engineering and Environmental Laboratory (INEEL) is an example where 
the State of Idaho felt compelled to assert its right to compel the DOE 
to proceed with shipments of TRU waste out of Idaho. While this legal 
process was effective in getting the DOE to act, it did so with a much 
larger cost than it should have. What would you do to make sure the DOE 
remains on time and within compliance, to avoid these costly and 
potentially inefficient court-ordered schedules?
    Answer. I share your concern that litigation and court-ordered 
schedules are not productive ways to do business. My experience as a 
field office manager has taught me the importance of working closely 
with the regulators and citizens at the site. Consulting with them and 
keeping them informed about policies, issues, and decisions will not 
only help the Department make better decisions that are more likely to 
hold up over time, it increases the chances that they will afford the 
Department needed flexibility when the time comes to make the tough 
decisions. A second key element is to do a better job of planning up 
front--to clearly define from the outset what is to be accomplished, 
when, how, and at what cost. This is a critical element for building 
credibility to support needed flexibility.
                           price-anderson act
    Question. The Department of Energy's Price-Anderson Act authority 
to provide indemnity protection for nuclear hazards expires on August 
1, 2002, unless again renewed by Congress. In 1999, the Department 
submitted a report to Congress indicating the Act should be extended 
again in substantially its present form. Does the Department continue 
to support reauthorization of this important Act?
    Answer. Yes. I understand that the Act is important to the 
Department's operations.
    Question. Is Price-Anderson Act reauthorization a priority of the 
Department's legislative agenda for 2001?
    Answer. Yes. I believe it is important for the Department's nuclear 
operations.
    Question. The current indemnification authority under Price-
Anderson expires in 2002. Should this authority be extended this year 
or can it wait until next year? What are the consequences of waiting 
until next year?
    Answer. I believe that reauthorizing this legislation needs to be 
assigned a high priority by Congress to prevent it from expiring and 
potentially disrupting DOE nuclear program activities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this committee and 
other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Energy for Environmental Management?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jean Carnahan
    1. Senator Carnahan. Could you explain what you believe is an 
appropriate method for the Department to evaluate alternative routes 
for cross-country nuclear waste shipments?
    Ms. Roberson. I believe it is critical that the Department complies 
with regulations and guidance provided by the Department of 
Transportation and Nuclear Regulatory Commission for routing of 
shipments of spent nuclear fuel. Those regulations establish interstate 
highways as ``preferred routes'' for spent fuel shipments, and provide 
criteria for evaluating and selecting potential routes, including 
limiting the time in transit.
    It is my understanding that the Department not only adheres to such 
regulations, but, in addition, participates in a working group of State 
and Tribal Nation representatives to identify and evaluate potential 
shipping routes.


    2. Senator Carnahan. Would you commit to conducting a thorough, 
scientific analysis that compares the safety of 1-70 with other 
alternative routes?
    Ms. Roberson. It is my understanding that the Department of 
Transportation is the Federal agency responsible for conducting safety 
analyses of interstate highways. If confirmed, I am committed to 
working with you to address the process used by the Department of 
Energy to evaluate potential shipping routes consistent with Federal 
regulations, and I also will ensure the involvement of other 
appropriate agencies to address interstate highway safety issues.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
    3. Senator Thurmond. The Nation is spending over $6 billion per 
year on DOE environmental cleanups. I am concerned that DOE spending 
plans are determined by the most vocal outside groups, or by compliance 
agreements made years ago, and not by the urgency of the work.
    Under the current criteria, is the Department focused on cleaning 
up the worst problems and are we getting the best return for our 
investment?
    Ms. Roberson. I share your concern that the Department's cleanup 
activities need to be properly aligned to focus on cleaning up the 
worst problems and getting the best return for our investment. As you 
are aware, Secretary Abraham has called for a complete top-to-bottom 
review of the Environmental Management (EM) program. If confirmed, one 
of the first tasks I will undertake is this evaluation of the EM 
program with the aim of ensuring the EM programs are aligned to safely 
cleanup our worst problems in the most efficient manner. As a part of 
this review, we will examine our compliance agreements to ensure that 
they are properly aligned to address our worst problems and work with 
the necessary parties to ensure that they reflect current cleanup 
priorities.


    4. Senator Thurmond. The President's budget reduces environmental 
remediation activities by approximately 60 percent. A reduction of this 
magnitude could result in SRS violating cleanup program commitments to 
the State of South Carolina and the Environmental Protection Agency. 
Many of the reductions are associated with cleanup of the SRS 
groundwater.
    What steps do you plan to take in regard to the environmental 
remediation account at SRS in light of the decreased funding for 
Environmental Management?
    Ms. Roberson. The budget process for fiscal year 2002 is still in 
progress. The President has proposed a budget; Congress is now 
considering that budget. It is inappropriate for me at this time to 
comment on the budget status or prognosis of individual projects at 
specific sites. If I am confirmed, I will work closely with Congress to 
align the budget with cleanup priorities and obligations. In the long 
run, it is incumbent on the EM program to develop ways to achieve 
progress faster at all of our sites. This will be one of my principle 
commitments, if confirmed.


    5. Senator Thurmond. In response to the recent tank 6 leaks in the 
SRS high level waste tank farm, the Defense Nuclear Facilities Safety 
Board issued a highly critical report. Although I agreed with many of 
the recommendations in the report, I am concerned with the 
recommendation to empty tank 6 by pumping the waste into other tanks. I 
believe the right course of action is to get the waste out of the 
ground and make glass through the vitrification process as fast as 
possible.
    Are you committed to vitrification? What is the best solution to 
resolve the high level waste tank farm problems?
    Ms. Roberson. I am committed to vitrification of high level wastes 
at the Defense Waste Processing Facility. The high-level waste tank 
farm is but one part of the system through which wastes are processed. 
The current problems affecting the high-level wastes tank farm must be 
addressed in the full context of the waste processing system without 
compromising safety margin in the short term. If confirmed, I will work 
to ensure that we resolve the tank farm problems in the most efficient 
manner.


    6. Senator Thurmond. I recognize that the cleanup of Rocky Flats is 
extremely important for the Department and the Environmental Management 
program. The removal of plutonium from Rocky Flats to permit further 
cleanup is largely dependent on the support of the Savannah River Site, 
which is expected to receive that plutonium for interim storage pending 
ultimate disposition. Without that support, Rocky Flats closure cannot 
be successful. I have stated on a number of occasions that SRS agreed 
to accept waste and materials from other sites based on assurances that 
a ``path out'' of South Carolina will exist. The EM budget and many of 
the new missions scheduled for SRS represent that ``path out.'' If the 
``path out'' becomes cloudy, the ``path in'' may become a ``road 
closed.''
    Will you serve as an advocate for proper funding for EM at SRS?
    Ms. Roberson. I am keenly aware of the interdependency between the 
cleanup of Rocky Flats and the missions at SRS. In fact, there are 
interdependencies like this throughout the complex. None of the EM 
sites can be successful without the cooperation and active support of 
many sites. One of my chief priorities, if confirmed, will be to manage 
the EM complex as a unified complex with a corporate philosophy. 
Success will not occur anywhere if they are operated as islands unto 
themselves. I can commit that I will be a visible advocate for the 
overall EM mission and cleanup priorities. At the same time, I 
recognize that EM has many crucial activities at SRS that will require 
significant management support. If confirmed, I will work closely with 
the State of South Carolina and Congress to ensure that EM activities 
are adequately supported and that the DOE meets its obligations at SRS.


    7. Senator Thurmond. It has come to my attention that the position 
of assistant manager for high level waste at the Savannah River Site 
has been vacant for the past 8 years. Please review this situation and 
provide me the following information: what are the plans for filling 
this position and is this an appointed or civil service position?
    Ms. Roberson. In general, it is not appropriate for me to comment 
on specific departmental personnel matters. It is my understanding that 
this position is a civil service position. It is my understanding that 
at this time there is a permanent assistant manager for high-level 
waste. I can assure you that I am committed to filling vacancies and 
retaining the technical and managerial expertise needed to manage this 
program.
                                 ______
                                 
              Question Submitted by Senator Rick Santorum
    8. Senator Santorum. The steel and metals industry, along with 
others, have been very concerned about the release of scrap steel and 
metal from radioactive areas of DOE facilities. A policy allowing 
release of scrap metal from radioactive areas into the general stream 
of recycled scrap metal in this country essentially shifts the costs--
both financial and health costs--of removing and dealing with 
radioactive contamination from the DOE to the steel mills and metal 
recyclers which have to make certain that no contaminated metal gets 
into new products. In addition, a policy allowing release by the 
government raises fears of the consuming public about the safety of 
steel and metal products, even if those industries are taking 
precautions to make sure the products in fact are safe. I think we all 
know of the condition of the U.S. steel industry. It certainly does not 
need the Federal Government working against it by allowing the release 
of scrap metal and steel.
    In light of concerns about the effect of releasing scrap steel and 
metal from DOE facilities, last year the Department of Energy 
instituted a moratorium on release of scrap steel and other metals from 
radioactive areas in DOE facilities.
    First of all, have you had an opportunity to review this issue and 
will you support a continuation of the moratorium on release of scrap 
steel and metal from radioactive areas?
    Second, can you assure us that a waiver will not he used to 
undermine the moratorium?
    Third, I would like your assurance that prior to making any changes 
in policy regarding release of scrap steel and metal from DOE 
facilities, that the Department will inform members of Congress who are 
concerned about this issue, to make sure that our concerns are 
addressed before any changes are made to the current moratorium on 
release?
    Ms. Roberson. I have not yet been briefed on this issue, but share 
your interest in ensuring the safe disposition of metal products. 
However, I am not able at this time to comment on this issue in depth 
nor to comment on the current moratorium, or on the possibility of 
granting individual waivers. If confirmed, I will work closely with 
interested members of Congress and the public prior to making any 
policy changes on release or recycling of scrap metal. Further, I can 
commit that the DOE will not take any steps that will endanger public 
health and the environment.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
    9. Senator Collins. In your advance questions, you stated that 
``there are two major fundamental challenges facing the Energy 
Department's environmental programs; the pace and cost of cleanup.'' 
While I understand that the Department will be undergoing a top-to-
bottom review, known as the Environmental Management Strategies Review, 
or EM Mission Assessment, how do you plan in the immediate future to 
confront these challenges?
    Ms. Roberson. I do not believe there are any quick fixes to these 
challenges. It is my goal, if confirmed, to make changes that have 
lasting and permanent impact on this program. Changes like that are not 
made lightly or casually. If confirmed, I commit to consult with 
Congress on any steps and initiatives necessary in the short-, medium-, 
and long-range to help us improve the pace, cost, and performance of 
the EM program.
                                 ______
                                 
    [The nomination reference of Jessie Hill Roberson follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                    April 30, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jessie Hill Roberson of Alabama, to be Assistant Secretary of 
Energy (Environmental Management), vice Carolyn L. Huntoon, resigned.
                                 ______
                                 
    [The biographical sketch of Jessie Hill Roberson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Jessie Hill Roberson
    In September 1999, President Bill Clinton nominated Ms. Jessie Hill 
Roberson, of Evergreen, Alabama, to the Defense Nuclear Facilities 
Safety Board. After confirmation by the United States Senate, Ms. 
Roberson began her duties as a Board Member on January 18, 2000.
    She has more than 17 years of experience in the nuclear field, with 
in-depth experience in low level waste management, environmental 
restoration, reactor operations, and project management.
    Prior to her appointment to the Board, Ms. Roberson served with the 
Department of Energy (DOE) in a variety of responsible and challenging 
positions. In 1996, she became the Manager of the DOE's Rocky Flats 
Field Office at the Rocky Flats Environmental Technology Site in 
Colorado, with the responsibility for integration and performance of 
all environmental cleanup activities on the Site. She served with 
distinction in this position until December 1999. In her 10 years with 
the Department of Energy, she has held numerous technical and 
managerial positions at the DOE's Rocky Flats Environmental Technology 
Site and the Savannah River Site in Aiken, South Carolina, including 
environmental cleanup, waste management, safeguards and security, as 
well as nuclear reactors and weapons.
    Before joining the Department of Energy, she worked with Georgia 
Power Company as a system engineering specialist from 1987 to 1989. At 
Georgia Power, Ms. Roberson focused on maintenance, testing, upgrades, 
and performance reliability of electrical and mechanical plant systems 
and equipment. She has extensive experience in nuclear reactor 
operations and successfully completed the testing requirements for 
reactor operations with E.I. DuPont in 1982. Later with DuPont she 
trained nuclear reactor operators and supervisors in both nuclear and 
field operations. Before leaving DuPont in 1987, Ms. Roberson worked as 
a nuclear reactor operations manager at several sites.
    From 1977 to 1980, Ms. Roberson completed work assignments as a 
student engineer for Westinghouse at the Clinch River Breeder Reactor 
in Oak Ridge, Tennessee and the Nuclear Center in Monroeville, 
Pennsylvania. Ms. Roberson received a B.S. in Nuclear Engineering from 
the University of Tennessee in Knoxville, Tennessee.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Jessie Hill 
Roberson in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jessie Hill Roberson.
    Jessie Mae Roberson.
    Jessie Mae Hill.

    2. Position to which nominated:
    Assistant Secretary for Environmental Management, Department of 
Energy.

    3. Date of nomination:
    April 30, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 8, 1958; Escambia County, Alabama.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced.

    7. Names and ages of children:
    Jessica Whitney Roberson--Age 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.

------------------------------------------------------------------------
                                   Dates                       Dates of
          Institution            attended   Degrees received    degrees
------------------------------------------------------------------------
University of Tennessee,         8/77-6/81  Bachelor of             6/81
 Knoxville.                                  Science.
------------------------------------------------------------------------


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
                                                                                                     Dates of
         Title/job description                    Employer                  Work location           employment
----------------------------------------------------------------------------------------------------------------
Sr. Reactor Manager....................  E.I. DuPont de Nemours....  Aiken, SC.................        1981-1987
Lead Systems Engineer..................  Georgia Power Company.....  Baxley, GA................        1987-1989
Dep. Asst. Manager for Environmental     U.S. Department of Energy.  Aiken, SC.................        1989-1994
 Restoration and Waste Mgt.
Site Manager...........................  U.S. Department of Energy.  Golden, CO................      1994-1/2000
Member.................................  Defense Nuclear Facilities  Washington, DC............   1/2000-Present
                                          Safety Board.
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    I have made approximately four contributions of $100 or less to the 
Colorado Democratic Party and the National Democratic Party in the last 
5 years.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    University of Tennessee Minority Engineering Scholarship.
    Honorary member of Rocky Flats African American Alliance.
    Small Business Administration (8A) Business Development Support 
Award--1999.
    Engineering New Record Newsmaker Award--1997.
    National Baptist Convention CHRISTAR Award--1997.
    American Association of University Women Trailblazer Award--1997.
    Girl Scouts Women of Distinction Award--1997.
    Denver Business Journal's Up and Comers Award--1997.
    Urban Spectrum Certificate of Honor--1997.
    U.S. Black/Hispanic Engineers Merit Award--1996.
    Blacks in Government Excellence in Leadership Award--1996.
    Environmental Protection Agency Certificate of Appreciation--1996.
    NAACP Scientific Achievement Award--1996.
    Award for Achievement in Equal Employment Opportunity--1996.
    Notable Women in Energy--1996.
    Black Engineer of the Year-Professional/Government--1995.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Environmental Restoration Strategy for DOE''--Rocky Flats 
Environmental Technology Site, Published in 1995, co-authored with 
Robert Card.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    In the past 10 years, I have given a wide variety of speeches 
related to nuclear cleanup of facilities and cleanup plans and 
progress. I have also frequently given speeches or participated in 
panel discussion for women, minorities, high school students, and 
college students related to continuing education, academic subject 
matters, engineering careers, managing changing culture and missions in 
the government, and leadership and professional development. I do not 
keep copies of my speeches and in most cases I do not have a prepared 
statement.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Jessie Roberson.
    This 21st day of May, 2001.

    [The nomination of Jessie Hill Roberson was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                              ----------                              

    [Prepared questions submitted to Thomas P. Christie by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                                                      June 6, 2001.
Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Yours truly,
                                Thomas P. Christie.
cc: Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. The 
focus on ``jointness'' outlined in the Defense Reorganization Act of 
1986 has significantly enhanced the readiness and warfighting 
capabilities of the U.S. armed forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening civilian control of the 
DOD, improving military advice given to the President and Secretary of 
Defense, and advancing the ability of the Department to carry out its 
fundamental mission--protecting America's security and furthering its 
vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects are the 
clear responsibilities and authorities given the CINCs for mission 
accomplishment, and the increased attention to formulation of strategy 
and contingency planning.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am unaware of any proposals to modify Goldwater-Nichols. 
The Department should consult closely with Congress, especially this 
committee, on any changes that might be appropriate.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Director of Operational Test and Evaluation?
    Answer. I understand that, if confirmed, my duties as Director, 
Operational Test and Evaluation will be to serve as the principal 
advisor to the Secretary of Defense and Under Secretary of Defense for 
Acquisition, Technology, and Logistics as to the conduct of test and 
evaluation within the Department and in formulating and implementing 
test and evaluation policy. Equally so, I am required to provide to 
Congress an annual report to Congress summarizing operational test and 
evaluation activities, to include comments and recommendations on test 
and evaluation resources and facilities, levels of funding required for 
operational test and evaluation activities, beyond low rate initial 
production reports, and specific requests from Congress for information 
relating to operational test and evaluation in the Department of 
Defense. If confirmed, my duties will include responsibility for 
prescribing policies and procedures for the conduct of operational test 
and evaluation, providing guidance to and consultation with the 
Secretary of Defense and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, and for monitoring and 
reviewing all operational and live fire test and evaluation within the 
Department. I will also be responsible for coordinating joint 
operational testing, review of and recommendations to the Secretary of 
Defense on all budgetary and financial matters relating to operational 
and live fire test and evaluation, including test facilities.
    I believe my role is to provide information on a continuous basis 
to the decision maker, assist in the learning needed in the development 
of new systems, and to provide an objective evaluation for the user of 
the system's capabilities and limitations early, or as it evolves or is 
upgraded. I also believe operational testers should assist in the 
development of tactics, techniques, and procedures for the system's 
employment and should provide evaluations on whether the systems are 
effective and suitable before full rate production or deployment.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld would prescribe for you?
    Answer. I would expect Secretary Rumsfeld to look to the Director, 
Operational Test and Evaluation to fulfill all the duties assigned to 
that office by statute and regulation--in particular, advice and 
proposed policies on all test and evaluation activities, and funding/
management of operational test facilities, test ranges, and other 
related issues.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Director of Operational Test and Evaluation?
    Answer. I believe that testing needs to be conducted more 
adequately, and requires better funding, both in phasing and magnitude. 
Funding for operational and live fire testing, test ranges, test 
facilities, and the test infrastructure--as a whole needs to be 
improved. I also feel that the state of the testing infrastructure, to 
include the physical plant, range real estate, instrumentation, data 
reduction and analysis, targets, and personnel, is in need of near-term 
investment and high-level emphasis. I am also concerned with the use of 
waivers to defer testing of key performance parameters and the lack of 
resources available to the service operational test agencies for 
testing smaller acquisition programs.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. To meet the above challenges, if confirmed, I plan to 
reinforce the initiatives of early involvement of operational testers 
during system development. I would also establish a system to track the 
problems identified by that early involvement to highlight them until 
they are resolved. If confirmed, I will engage the budget process and 
will institute effective long-range planning to link approval of TEMPs 
to the commitment of infrastructure investment. I will also give 
serious consideration to recent Defense Science Board recommendations 
on infrastructure management. On the issue of waivers, I would continue 
the DOT&E practice of ignoring waivers or deferrals in my assessment 
unless they reflect requirements changes approved by the JROC.
                      adequate operational testing
    Question. Section 2399 of Title 10 requires a report from the 
Director of Operational Test and Evaluation on whether the operational 
test and evaluation of each major defense acquisition program has been 
adequate and whether the results of such testing ``confirm that the 
items or components actually tested are effective and suitable for 
combat.''
    Can you assure the committee that, if confirmed, you will meet this 
statutory requirement and that you will require adequate operational 
test and evaluation of all major defense acquisition programs?
    Answer. If confirmed, I promise to fulfill to the best of my 
ability my responsibilities with regards to Section 2399 of Title 10. I 
will ensure that adequate testing is conducted by the Department and 
will vigorously assess the effectiveness and suitability of defense 
acquisition programs under DOT&E oversight.
                      independence and objectivity
    Question. Congress relies on the Director of Operational Test and 
Evaluation to be an independent and objective evaluator of the 
performance of major systems.
    Can you assure the committee that, if confirmed, you will be 
independent and objective in your evaluations, and that you will 
provide your candid assessment of major defense acquisition programs to 
Congress, regardless of the consequences?
    Answer. Yes. I strongly believe independence to be crucial to 
objective testing and reporting. If confirmed, I intend to be 
independent and to provide candid assessments of all oversight programs 
to Congress.
    Question. Section 2399 of Title 10 establishes certain requirements 
regarding the impartiality of contractor testing personnel and 
contracted advisory and assistance services utilized with regard to the 
test and evaluation of a system.
    What is your view of these requirements?
    Answer. It is my view that Section 2399 of Title 10 prohibits 
persons employed by the contractor for the system being tested from 
being involved in the conduct of the operational test and evaluation 
and restricts the DOT&E from contracting any person for advisory and 
assistance services with regard to the operational test and evaluation 
of a system if that person participated in the development, production, 
or testing of such system. These sections appear to me to strike a good 
balance in maintaining objectivity and independence without impacting 
the ability to conduct OT&E.
    Question. Will you comply with them?
    Answer. Yes.
                        modeling and simulation
    Question. Advances in modeling and simulation have provided an 
opportunity to streamline the testing process, saving time and expense.
    What do you believe to be the proper balance between modeling and 
simulation and actual testing of the developed product?
    Answer. I believe modeling and simulation can be effective in 
supporting test and evaluation in the test design and planning process. 
Another potentially high payoff area is in the logistics support area. 
I believe it is extremely difficult to measure the cost and time 
benefit associated with the use of modeling and simulation in the test 
and evaluation process and that most attempts so far have lacked the 
up-front funding needed for success. Modeling and simulation in not a 
substitute for testing, but there are situations where field-testing 
alone cannot represent the realistic situation. This is the case in 
some missile defense and chemical-biological defense scenarios. In 
those cases, modeling and simulation can help in the evaluation of what 
has been learned from field-testing.
    Question. How is the amount of this actual testing determined to 
ensure reliability and maintainability thresholds are met with 
sufficient statistical confidence?
    Answer. I am not aware of any standard or DOD guidance in this 
area. When the National Academy of Sciences looked at OT&E in 1998, 
they found that ``Our assessment is that the current level of test 
planning and experimental design for operational testing in the 
Department of Defense is neither representative of best industrial 
practices, nor takes full advantage of the relevant experimental design 
literature.'' If confirmed, I plan to review this situation.
                         developmental testing
    Question. During the past several years, a number of changes have 
been made to the historical divisions between developmental and 
operational testing activities. Largely, these have involved providing 
for earlier involvement of the operational testing community in 
developmental testing in order to increase the confidence that weapons 
systems will be ready for operational testing and reduce the need to 
repeat testing during the operational evaluation phase that has already 
been demonstrated satisfactorily during developmental testing.
    Do you believe that the current relationship between developmental 
and operational testing activities is appropriate?
    Answer. I believe the relationship between developmental test 
activities and operational test activities within the Department is 
appropriate. Developmental testing is intended to verify the status of 
engineering development, verify that design risks have been minimized, 
verify technical performance, and certify readiness for operational 
test. Operational test and evaluation is to determine if a system is 
operationally effective and operationally suitable for use by intended 
users before production or deployment.
    There is growing evidence that there is a need to conduct more 
thorough developmental testing to preclude weapon systems from entering 
operational testing before the systems are ready.
    Question. Do you believe that the Department should make additional 
changes in this arena?
    Answer. If confirmed, I will work with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics to promote the value 
of developmental testing and, if appropriate, to strengthen the 
readiness for operational test and evaluation certification process. I 
also intend to review the current practices of the services to 
``waive'' or ``defer'' requirements.
    Question. Are you concerned that the increased involvement of the 
operational testing community in developmental testing could undermine 
the confidence we need in the independence and objectivity of our 
operational testers?
    Answer. I believe that experience has shown that increased 
operational testing involvement has not compromised the independence 
and objectivity of operational testing and evaluation. DOT&E and 
Operational Test Agency independence is absolutely vital. I believe 
that operational testers must always retain a clear view of their 
primary responsibilities--to ensure that the weapon systems are 
operationally effective and operationally suitable before those systems 
are acquired for our operational forces. If confirmed, I will reinforce 
that responsibility.
    Question. There has been concern that some programs are not being 
adequately tested during the developmental testing phase.
    What do you propose to do, if confirmed, to ensure adequate 
developmental testing is taking place?
    Answer. I share the concern that some programs are not being 
adequately tested during developmental testing. I believe that the 
readiness for operational test certification process needs to be 
reviewed and strengthened.
    I also recognize the Director's responsibility to offer advice to 
those who are responsible for developmental testing. I place high 
importance on thorough developmental testing before initiation of 
operational testing. I fully support the need for operational testers 
to be involved early in the program, with emphasis on understanding the 
developmental testing that has occurred and the results of that 
testing. If confirmed, I would vigorously make known my advice if I 
perceive that developmental testing was insufficient.
    Question. Do you feel that operational testers should have earlier 
insight into the developmental testing process?
    Answer. Yes.
    Question. When is it appropriate for developmental and operational 
testing to be combined?
    Answer. Combining developmental, operational test, and live fire 
test and evaluation is appropriate when test objectives are similar or 
overlapping and makes sense when a test event can meet multiple test 
objectives, including being conducted in an environment or scenario 
that is relevant to all. Depending on the test, either the 
developmental, live fire, or operational testers may conduct the test, 
with the data from the test available fully to all. I believe that the 
evaluation of the results of such combined testing is then best done 
independently in accordance with the differing objectives and 
perspectives of the evaluators.
                  streamlining the acquisition process
    Question. Both Secretary Rumsfeld and Under Secretary Aldridge have 
indicated that they believe that there is a compelling need to 
streamline the acquisition process to reduce the fielding times for new 
weapons systems and capabilities.
    If you are confirmed as the Director of Operational Test and 
Evaluation, how would you propose to achieve an appropriate balance 
between the desire to reduce acquisition cycle times and the need to 
perform adequate operational testing?
    Answer. The time to conduct operational testing is only a small 
percentage of the overall acquisition cycle time. Delays in entering 
operational testing usually are much longer than the time frame of the 
operational test itself. Because the operational tests supporting full 
production occur near the end of the acquisition cycle, there is 
greater pressure to rush such tests. I feel that the operational 
testers can contribute to reducing cycle time by identifying problems 
early in the development cycle when the problems can be solved with 
less impact on the program.
    Question. There has been an initiative toward evolutionary 
acquisition, or spiral development, to field weapons systems sooner and 
then to evolve them once fielded.
    What is the impact of this initiative on the testing process?
    Answer. The operational testers will need to remain intimately 
involved with a weapons system program well beyond the full-rate 
production decision.
    Question. What requirements and criteria would you propose to 
ensure an effective test program is established for an evolutionary 
acquisition program?
    Answer. Spiral development requires a time-phased requirements 
process with a distinct set of requirements for each development 
spiral. Each spiral can then be operationally tested and evaluated 
against appropriate requirements.
    Question. Do you foresee that follow-on operational testing will be 
required for each program ``spiral''?
    Answer. Yes. The first spiral that represents a fieldable 
configuration will undergo initial operational test and evaluation 
supporting the beyond low-rate initial production decision. Subsequent 
spirals will undergo follow-on operational test and evaluation.
                     ``system of systems'' testing
    Question. Many programs are now developing what is called a 
``system of systems'' approach.
    What challenges to operational testing are inherent for DOD 
programs that are a part of an overall ``system of systems''?
    Answer. I believe the most significant challenge to operational 
testing of systems deployed in an integrated ``system of systems'' is 
to adequately assess interoperability in terms of the system's 
contribution to the integrated ``system of systems'' effectiveness and 
efficiency. This challenge is becoming more complex due to the 
modernization and automation of the integrated battlefield where most 
all systems must function to some degree in a ``system of systems'' 
architecture. Multiple factors contribute to the challenge of 
operationally testing interoperability.
    Since acquisition programs are typically managed in a ``stovepipe'' 
manner, the system program managers are neither chartered nor funded to 
ensure the individual system's contribution to the ``system of 
systems.'' The challenge is made more difficult by the expense and 
logistics in pulling all the members of a ``system of systems'' 
together for adequate interoperability testing of a new acquisition 
program.
    Question. How should a ``system of systems'' be tested to assess 
the effectiveness of the whole?
    Answer. I believe that prior to the production decision for a new 
acquisition program, the new system should be operationally tested in 
the ``system of systems'' architecture. ``System of systems'' testing 
should be integrated and conducted with the Initial Operational Test 
and Evaluation (IOT&E) prior to the production decision. All ``system 
of systems'' testing should be planned and detailed in the Test and 
Evaluation Master Plan. Final evaluation of the system's performance 
and contribution to the ``system of systems'' should be in the IOT&E 
where systems are deployed with trained operators and operated in 
accordance with approved tactics and doctrine. This substantially 
increases the scope of OT as systems become more interoperable.
           advanced concept technology demonstrations (actd)
    Question. ACTDs have been viewed as a method to get promising 
technology into the hands of the operational forces in an expeditious 
manner.
    How do you view DOT&E's role in the execution of ACTDs, especially 
for those demonstrations where the system is to be fielded 
operationally upon completion of the ACTD?
    Answer. Although most of the ACTDs do not reach the dollar value of 
a major defense acquisition program, several--because of their 
significant impact on combat operations--have been placed under DOT&E 
oversight. In those cases, it is my understanding that DOT&E conducts 
independent early operational assessments of the ACTD and includes 
assessment reports in the DOT&E annual report to Congress. These 
assessments also provide the operational user with an understanding of 
the capability and weaknesses of the systems if they are deployed 
before they go through test and evaluation of a normal acquisition 
program. If confirmed, I will encourage the service operational test 
agencies to do the same for ACTDs that are not under DOT&E oversight, 
but this requires additional resources.
                   funding for testing and evaluation
    Question. Over the past 12 years, we have cut the operating and 
investment budget for our major range and test facility bases by more 
than a billion dollars. At the same time, a number of major programs 
have reduced their test and evaluation budgets.
    Do you believe that the test and evaluation function is adequately 
funded in the Department of Defense today?
    Answer. No. I agree with the DSB finding that ``the T&E process is 
not funded properly--in phasing or magnitude. Funds are not available 
early enough, [and] corners are cut in the testing that is done.'' As a 
consequence, there is an aging workforce, skills imbalances, and few 
military left in the T&E organizations. The age of the facilities and 
capabilities average over 35 years, with some over 50 years old.
    Question. What, in your view, are the likely consequences of 
underfunding testing and evaluation?
    Answer. The recent DSB found that ``the T&E process is not funded 
properly in phasing or magnitude.'' As a result, the report went on to 
conclude that ``testing is not being conducted adequately--if systems 
are not adequately tested they enter the inventory with latent defects 
that can be very costly and can impact operational effectiveness.'' I 
agree with that assessment.
                           live fire testing
    Question. The live fire testing program is a statutory requirement 
to assess the vulnerability and survivability of platforms, while also 
assessing the lethality of weapons against the required target sets.
    Do you believe that the Department's current live fire testing 
program is accomplishing its purpose?
    Answer. Yes. I believe the Department's live fire testing program 
is accomplishing its purpose, and I strongly support the intent of 
Congress when it passed the statutory requirement to assess the 
vulnerability, lethality, and survivability of platforms with realistic 
testing. In virtually every live fire program conducted to date, there 
have been unexpected lessons learned that have resulted in design 
corrections to improve the survivability (or lethality) of the systems 
under test.
             combination of testing with training exercises
    Question. Some hold the view that the most representative 
operational testing would be to allow operational forces to conduct 
training exercises with the system under evaluation.
    Should testing be combined with scheduled training exercises? What 
are the barriers, if any, to doing so?
    Answer. The Department has combined testing and training events 
since the 1960s, with combined testing and training as one of the 
themes for operational test and evaluation articulated by Secretary 
William Perry in 1995. I favor combined test and training events when 
they provide increased test realism, more realistic friendly and threat 
forces, and provide a broader operational context, but still allow for 
the necessary collection of data.
    On the other hand, I recognize there may be differing testing/
training philosophies--and objectives, data collection intrusiveness 
requirements, ability to control events, and flexibility of schedule 
are potential barriers that require close cooperation between the 
tester and trainer in order to be successful.
             science and technology for test and evaluation
    Question. In fiscal year 2002, the Office of Operational Test and 
Evaluation will initiate a Science and Technology for Test and 
Evaluation program in coordination with the Deputy Under Secretary of 
Defense for Science and Technology. The program is intended to 
accelerate the development of critical technologies for test and 
evaluation, provide the essential knowledge base, and build test and 
evaluation capabilities for the future.
    If confirmed, what actions will you take to ensure that this 
initiative meets the stated objectives?
    Answer. If confirmed, I will continue to work with all appropriate 
organizations to establish the initial framework for this program. For 
the first time, the Department has a structured program that fosters a 
robust T&E/S&T planning process. This program will allow test 
technologies to pace evolving weapons technology, and is absolutely 
critical to ensuring that the Department has the capability to fully 
and completely test the advanced systems that will be fielded in 2010-
2020.
    I will continue to work with all the stakeholders to develop a 
comprehensive test technology roadmap that is consistent with other 
departmental planning documents such as Joint Vision 2020. This entails 
working intimately with the test capability developers and leveraging 
heavily from technology that emerges from academia, the DOD S&T 
community, and industry. If confirmed, I will attempt to identify and 
invest in the critical, leap-ahead technologies that are required to 
test tomorrow's advanced weapons systems.
                    operational test agencies (ota)
    Question. There is currently an OTA for each of the services and 
the Marine Corps. The OTA provides testing for new and evolving 
systems, however, each service has a unique funding process for this 
testing. For example, testing within Navy programs is funded through 
program managers, but testing within the Air Force is funded through 
the OTA.
    What benefit, if any, would be realized through a single funding 
structure within the OTA and would you recommend funding testing 
through OTAs or program managers?
    Answer. I believe that funding of OT&E through the OTAs has led to 
problems in the past, creating internal pressures within the OTAs to 
limit the amount of operational testing based on their budgets. There 
have also been difficulties due to substantial development delays that 
move OT&E from fiscal year to fiscal year. When the funding for OT&E is 
the responsibility of individual programs, as required by 10 U.S.C. 
2399, the Test and Evaluation Master Plan (TEMP) becomes the basis for 
OT&E test resources and the program manager must plan for, budget, and 
provide those resources at the time of OT&E.
    Question. Do you have any concerns about the independence of the 
OTAs?
    Answer. Yes, I am concerned that there will always be pressures on 
the OTA commanders to support service acquisition strategies. I think 
that it is important that they continue to report to the top level of 
their respective services, independent of the service acquisition 
organizations.
    Question. Should the policies and procedures of the OTAs be 
standardized?
    Answer. Each of the service OTAs has unique processes for the 
conduct of OT&E. As long as these processes lead to a robust 
operational test and evaluation of weapon systems, I believe DOT&E does 
not need to standardize those processes. I also feel that the area of 
OT&E funding is an area where some standardization may be appropriate.
    Question. Can you describe DOT&E's role and oversight of the use of 
waivers to operational testing requirements by the OTAs?
    Answer. DOT&E does not recognize waivers that services may apply to 
the conduct of OT&E. I believe that operational tests conducted by the 
OTA must adequately address all required capabilities regardless of 
waivers.
    Question. What are your thoughts on the establishment of a joint 
testing agency?
    Answer. My major concern is that the OTAs receive adequate funding 
and manning to carry out their missions. Only if the OTAs were not 
adequately resourced would I consider a joint testing agency.
                data sharing during operational testing
    Question. Recent experience during operational testing on the V-22 
program indicated that there may be problems with sharing important 
data with responsible officials outside the testing chain of command 
generated during operational evaluation. It is clear that there need to 
be limits on the ability of the program office to influence the testing 
results. However, it is less clear why the program office should not 
have clear visibility of data generated during testing.
    Are you aware of current limitations on program office visibility 
into the activity and results of operational testing?
    Answer. Yes. I understand that one service does limit access to 
test data during the conduct of the operational test.
    Question. If so, do you agree with those limitations?
    Answer. No. I believe that the deficiency data during an 
operational test should be readily accessible to all organizations that 
have a legitimate need for such data. On the other hand, this is a two-
way street as data from the program offices and other organizations 
should be shared on a routine basis to provide greater insight to 
operational testers throughout the acquisition cycle.
    Question. Should there be appropriate differences of access between 
contemporaneous access and subsequent access?
    Answer. I believe that the deficiency data should be available as 
soon as practicable with expedited availability for potential safety 
deficiencies. Access to the deliberative information associated with 
the evaluation process, such as scoring, should be released with the 
final test report. I believe the specific timing of the release of data 
needs to be developed as a matter of policy over the near term.
                                  v-22
    Question. Over the last year, substantial questions have been 
raised about the viability of the V-22 program as a result of two fatal 
crashes and allegations that key maintenance data on the program may 
have been falsified. As a result of these problems, a decision to 
proceed beyond low rate initial production has been delayed.
    Can you assure the committee that you will ensure that adequate 
operational testing and evaluation is conducted on the V-22 program, 
and that you will make a determination whether the items or components 
actually tested are effective and suitable for combat?
    Answer. It is my understanding DOT&E will continue involvement with 
the V-22 program test and evaluation planning activities for the next 
several years, as well as with longer-term investigations into the 
unique qualities of tilt-rotors in general and the V-22 in particular. 
The planned experimental, developmental, and operational test activity 
to support a resumption of operational flying and eventual full-rate 
production will be documented in a revision to the Test and Evaluation 
Master Plan, which I will review, if confirmed.
    Question. If the operational testing and evaluation on the V-22 
program does not demonstrate that the items and components tested are 
effective and suitable for combat, will you recommend against 
proceeding beyond low-rate initial production on the program?
    Answer. The decision to proceed beyond low-rate initial production 
is properly the responsibility of the Defense Acquisition Executive. If 
confirmed, I will issue a DOT&E report to the Defense Acquisition 
Executive, Secretary, and congressional defense committees at the time 
the decision is proposed. In that report, I will provide my opinion 
regarding test adequacy, operational effectiveness, operational 
suitability, and survivability of the V-22.
                        national missile defense
    Question. The United States has been developing a land-based 
National Missile Defense (NMD) system that has an approved operational 
requirement for defeating all incoming ballistic missile reentry 
vehicles from a limited ballistic missile attack, with a very high 
degree of confidence.
    Can you assure the committee that you will ensure that adequate 
operational testing and evaluation is conducted on any National Missile 
Defense system, and that you will make a determination whether the 
items or components actually tested are effective and suitable for 
combat?
    Answer. If confirmed, my intention is to have an operational test 
and evaluation program developed that adequately addresses the approved 
system operational requirements. Upon completion of the initial 
operational test and evaluation, I will provide an assessment of the 
effectiveness and suitability of the tested system.
    Question. If the operational testing and evaluation of a National 
Missile Defense system does not demonstrate that the items and 
components tested are effective and suitable for combat, will you 
recommend against the acquisition or deployment of the system?
    Answer. The decision to proceed is that of the Secretary of Defense 
or his designated executive. I would not recommend the acquisition or 
deployment of an ineffective or unsuitable system.
    Question. Do you believe that a program of operational testing and 
evaluation for a National Missile Defense system can be considered 
adequate if it does not include the use of countermeasures?
    Answer. I feel that an adequate test and evaluation must include 
the use of countermeasures.
    Question. The previous Director of Operational Test and Evaluation 
recommended additional and more realistic testing of the ground-based 
National Missile Defense system. The Bush administration may revise the 
architecture and requirements of the ground-based NMD proposed by the 
Clinton administration.
    Can you assure the committee that, if confirmed, you would work 
with Secretary Rumsfeld and the Director of the Ballistic Missile 
Defense Organization (BMDO) to determine a reasonable test and 
evaluation program for any revised missile defense program proposed by 
the Department of Defense?
    Answer. If confirmed, I intend to work with the Secretary of 
Defense, the Under Secretary of Defense for Acquisition, Technology, 
and Logistics, and the Director, Ballistic Missile Defense Organization 
to assure an adequate test and evaluation program is developed to 
determine that the selected architecture satisfies the approved 
operational requirements.
    Question. The previous Director of Operational Test and Evaluation 
recommended an expansion of the NMD range and infrastructure to provide 
for more realistic testing.
    Do you agree with this recommendation?
    Answer. Yes. I would always agree to range and infrastructure 
improvements to provide more realistic testing. If confirmed, I will 
need time to review the program before I can offer any specific 
recommendations.
    Question. The missile defense community, as well as many other 
development and acquisition communities, makes extensive use of 
modeling and simulation.
    What role should modeling and simulation play in the test and 
evaluation process?
    Answer. I believe that modeling and simulation is indispensable to 
modern test and evaluation and can help the process in many ways. 
Simulations can help identify critical operational issues and key 
performance parameters to help focus test objectives. They can help 
develop test scenarios and otherwise assist in detailed test planning. 
Simulations can examine performance under conditions that cannot be 
replicated on a test range. I expect that simulations will evaluate 
missile defense performance for larger scale scenarios than planned for 
flight test and for numerous countermeasure variations that might be 
conceived.
    Question. Can modeling and simulation streamline or reduce BMD 
operational test requirements? If so, to what extent?
    Answer. I cannot speak to specific reductions modeling and 
simulation could bring, and until I fully understand program specifics 
and the NMD acquisition strategy, I am not prepared to elaborate on any 
specific BMDO test requirements.
    Question. Countermeasures deployed by rogue nations could pose a 
challenge to BMD systems, but if and when such countermeasures would be 
deployed remains open to question.
    If confirmed, how do you intend to address the challenge of BMD 
testing against countermeasures?
    Answer. If confirmed, I intend to work with all the interested 
organizations to develop a broad program of flight tests, hardware-in-
the-loop ground tests, and simulations to confirm that the system has 
sufficient performance margins to handle likely countermeasures.
    Question. The DOT&E Fiscal Year 2000 Annual Report recommended that 
the NMD program office ``should consider a much more parallel approach 
whereby flight testing can continue at an aggressive pace in the wake 
of a possible failed intercept.''
    Do you agree with this recommendation?
    Answer. Until I fully understand program specifics and the NMD 
acquisition strategy, I am not prepared to elaborate on any specific 
BMDO test requirements.
                          army transformation
    Question. The National Defense Authorization Act for Fiscal Year 
2001 requires the Secretary of the Army to conduct a comparative 
evaluation of interim armored vehicles selected for the fielding of 
interim brigade combat teams with equipment already in the inventory. 
The intent of this law is to carry out a side-by-side comparative 
operational evaluation of units similarly organized, trained, and 
equipped, other than for the differences in medium armored vehicles.
    The law further requires that the evaluation plan, including the 
size of the units involved in the evaluation, be approved by the DOD 
Director of Operational Test and Evaluation. Last month the acting 
Director of Operational Test and Evaluation approved an evaluation 
plan, which examines platoon level missions in accordance with the 
interim brigade combat team organizational and operational concept.
    Do you agree that an evaluation of platoon level missions is 
sufficient for such a new and unique unit designed primarily for 
operations at brigade level?
    Answer. I believe that platoon level missions carried out at the 
company level in terms of vehicles and manpower are appropriate with 
robust technical testing. I think the test strategy is sufficient for 
an adequate vehicle level comparison. In contrast to the vehicle 
comparison, the interim armored vehicle IOT&E, currently scheduled for 
fiscal year 2002, will be a much larger test and evaluation of the 
capability of an interim brigade combat team equipped with medium 
armored vehicles to accomplish its missions. The IOT&E is currently 
designed to be conducted with an interim brigade combat team battalion 
and a brigade headquarters.
    Question. Do you intend to review that decision?
    Answer. Yes. If confirmed, I will work closely with the committee 
and the Army to ensure the intent of the law is met. The Army will be 
submitting a detailed comparative evaluation test plan to DOT&E for 
approval this month. If confirmed, I will review the plan for the 
comparison evaluation.
    Question. Will you assure the committee that you will take a 
personal interest in providing oversight for the conduct of that 
operational comparison to ensure that this evaluation is valid and 
fulfills the intent of the congressional language?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Director of Operational 
Test and Evaluation?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. With the greater reliance on the use of 
computer simulations in virtually all aspects of military training and 
testing, is there a continuing need for the extensive and costly live 
fire test and evaluation program?
    Mr. Christie. There is a continuing need for an adequate and 
thorough Live Fire Test and Evaluation (LFT&E) program. Congress 
established the LFT&E program as a mechanism for reducing the 
vulnerability of American military personnel using our combat equipment 
and increasing the lethality of their weapons.
    The current (and foreseeable) state-of-the-art in modeling and 
simulation (M&S), does not support the exclusive use of M&S predictions 
for system vulnerability or weapon lethality evaluations in lieu of 
live testing. The final product of an LFT&E program is a comprehensive 
evaluation of a system's vulnerability or lethality under operationally 
realistic conditions. This evaluation, which supports the decision to 
proceed beyond low-rate initial production, is based on realistic 
testing complemented by the best analytical tools available, to include 
M&S.
    These M&S tools have proven both useful and necessary in the design 
of military systems and their test programs. Significant advances have 
been made in certain kinds of vulnerability and lethality modeling, 
such as physics-based modeling in support of ballistic missile 
programs. Such models help us identify munition-target interactions 
with uncertain or mixed results, allowing us to focus testing on areas 
where we are unsure of the outcome.
    DOD regulations require each live fire test to be preceded by a 
prediction of results, using M&S. In part, this is intended to help 
validate those aspects of the model that appear to have predictive 
capability. Frequently, however, we have found that the predictive 
capabilities are severely limited or are inadequate. Model-test 
comparisons have assisted us in determining the appropriate role of M&S 
in our evaluations, and have helped the model developers to identify 
priorities for M&S improvements.
    Finally, I should note that LFT&E involves a relatively modest cost 
to the program. Typically, the cost of LFT&E has not exceeded three-
tenths of 1 percent (0.3 percent) of program costs and, in most cases, 
the cost has been much less. This includes the cost of testing as well 
as the M&S applications in support of the LFT&E.


    2. Senator Thurmond. One of the goals of the Live Fire Testing and 
Training Program is to bring together the testing and training 
communities in the fielding of a weapons system. I personally believe 
that this must be a priority and that it should be done at the earliest 
possible time in system development.
    Based on your earlier tour in the Operational Test and Evaluation 
office, are the services and OT&E doing enough in this area and what 
changes would you advocate, if confirmed?
    Mr. Christie. I agree that priority should be given to achieving 
greater cooperation between the testing and training communities to 
better serve the Department's goal of fielding weapon systems with 
demonstrated operational capability in a more timely manner. If 
confirmed, I will advocate and support initiatives to share 
technologies and data between the two communities and to foster early 
collaboration that is crucial to lower cost and speedier acquisition of 
new weapon systems.
    For example, I believe up-front investment in the training package 
for new systems can speed the process of fielding new capabilities, not 
merely passing a contractual milestone such as full-rate production. 
Early development of the training package could also allow more 
meaningful consideration of how the system will be used by our combat 
forces and that, in turn, could facilitate the design of a more robust 
and productive operational test and evaluation. Another initiative 
would involve the early development of man-in-the-loop training 
simulators containing the same software as the actual system that could 
then serve early on as effective software test beds.


    3. Senator Thurmond. Many so-called experts believe that the 
solution to all problems in the Department of Defense can be resolved 
by adopting commercial practices. After all, Boeing and other 
corporations have their test and evaluation programs for commercial 
projects and they seem to get their products in the hands of customers 
much faster than the Department of Defense.
    How is the civilian testing program different from that within the 
Department of Defense and should we be looking at commercial practices 
in the testing area?
    Mr. Christie. There are a number of differences between the 
business practices of the Department of Defense and those of the 
commercial sector. In the main, commercial product development 
practices place much greater emphasis on testing than does defense. 
Commercial products that do not perform up to expectations suffer 
severe consequences in the marketplace. Of the thousands of new 
commercial products introduced each year, most fail to be profitable 
and soon disappear from the marketplace. Thus, there is a very strong 
incentive to ensure product effectiveness and suitability through 
robust testing. On the other hand, while defense weapons systems are 
not subject to the discipline of the marketplace, it is imperative that 
they be operationally effective, suitable, and survivable when employed 
by our soldiers, sailors, and airmen across a spectrum of demanding 
combat scenarios.
    In many commercial cases, testing can be the largest single effort 
in development and, for the most part, it is an integral part of the 
development process. Commercial testing capability is planned, 
resourced, and conducted early to ensure that product development is 
well-focused on meeting product objectives. Achieving that same early 
emphasis for weapons systems testing will be one of my major goals, if 
I am confirmed.
                                 ______
                                 
                Question Submitted by Senator Bob Smith
    4. Senator Smith. Congress has funded the Live Fire Testing and 
Training Initiative for the last 7 years. This has been a successful 
program which has saved lives and taxpayer dollars.
    Can you assure me that as the Director of Operational Test and 
Evaluation you will advocate this initiative and that you will ensure 
it is included in the President's defense budget submitted to Congress?
    Mr. Christie. I agree that the Live Fire Testing and Training 
Initiative has been a successful program that has saved lives and 
taxpayer dollars over the years that it has been funded by Congress. If 
confirmed, I will use my position as the Director, Operational Test and 
Evaluation to advocate funding this program in the President's defense 
budget, but could not ensure that any particular program or its level 
of funding will be included in the budget. That decision will be made 
by the Secretary of Defense who must balance a host of competing 
demands for scarce resources in his deliberations on the defense 
budget.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
    5. Senator Santorum. In an answer to advance questions, you state 
that you intend to promote the value of developmental testing and, if 
appropriate, to strengthen the readiness for operational test and 
evaluation certification process. During the past 2 years as Chairman 
of the Airland Subcommittee, I have expressed concern over migration of 
developmental test content out of the F-22 Raptor program. It seemed as 
if every time cost or schedule difficulties loom, more ``testing 
efficiencies'' had been discovered.
    As the Director of Operational Test and Evaluation, how will you, 
if confirmed, and how are we, in our oversight role, to gain confidence 
that an appropriate level of developmental test has occurred before a 
program enters its operational test and evaluation?
    Mr. Christie. I am also concerned with the ``migration'' and 
reduction in content of early developmental testing across the 
Department. If confirmed as the Director of Operational Test and 
Evaluation, I will work with the Under Secretary of Defense 
(Acquisition, Technology, and Logistics) and the service secretaries to 
reverse this disturbing trend. Consistent with statutory limitations on 
my involvement in developmental test issues, if confirmed, I will 
strive to ensure that the services implement a process whereby new 
systems must demonstrate sufficient maturity through developmental 
testing prior to entering operational test and evaluation. 
Additionally, I would continue to closely monitor system performance in 
early testing, conduct early operational evaluations, and provide 
independent advice and assessments to senior decision-makers and work 
to eliminate ``migrations,'' ``waivers,'' and ``deferrals''.
    You refer to the problem of cost and schedule difficulties leading 
to test ``efficiencies'' that reduce testing. The most efficient test 
capability is one that accomplishes all the required testing within a 
schedule that is reasonable for the program. Certainly, the funding cap 
has been a major problem leading to the changing F-22 Raptor test 
program, but the test and evaluation infrastructure has had some 
problems accommodating all the flight test sorties the Air Force needs 
to accomplish in the time remaining on the schedule. If confirmed, I 
will seek to enhance the capabilities and responsiveness of our T&E 
infrastructure so that adequate testing is not perceived as a threat to 
the program manager's schedule.


    6. Senator Santorum. The National Defense Authorization Act for 
Fiscal Year 2001 directed the Director of Operational Test and 
Evaluation to approve the Secretary of the Army's plan to conduct a 
side-by-side comparison of the infantry carrier variant of the interim 
armored vehicles selected for the interim brigade combat teams and the 
troop-carrying medium armored vehicles currently in the Army inventory.
    This committee directed this test because of its concern that the 
Department of the Army had selected a vehicle for its interim brigade 
combat team that was more costly than medium armored vehicles currently 
in the inventory but not operationally more effective.
    Do you agree that a side-by-side test be conducted before the 
Department obligates funds for acquisition of medium armored combat 
vehicles for the third interim brigade?
    Mr. Christie. I understand the requirement to conduct a side-by-
side test prior to obligation of funds for the third interim brigade 
combat team by the Department of the Army. In addition, a cost and 
operational effectiveness comparison, using the results from that test, 
will also be conducted before release of that funding. In addition, I 
understand that the Secretary of Defense must certify his approval of 
the obligation of funds and that the resulting force structure will not 
diminish the combat power of the Army.
    The Army concept for the Medium Armored Vehicle Comparison 
Evaluation, as briefed to DOT&E this past spring, appears adequate to 
address operational effectiveness, suitability, and survivability 
issues. However, I understand the DOT&E office is awaiting more details 
on this concept that will be available when the Army submits its formal 
plan for DOT&E approval later this July. Overall, the Army's evaluation 
concept relies on both developmental and operational testing, the use 
of existing data, and modeling and simulation. The operational test 
event consists of side-by-side military operations of an infantry 
company equipped with the interim armored vehicle equipped with Force 
XXI Battle Command Brigade and Below (FBCB2) and an infantry company 
with M113A3 Armored Personnel Carriers (APCs) with FBCB2. Developmental 
testing includes performance envelope testing to measure payload, 
mobility, survivability, and suitability.
                                 ______
                                 
    [The nomination reference of Thomas P. Christie follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                      May 24, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Thomas P. Christie of Virginia, to be Director of Operational Test 
and Evaluation, Department of Defense, vice Philip Edward Coyle III, 
resigned.
                                 ______
                                 
    [The biographical sketch of Thomas P. Christie, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Thomas P. Christie
    Thomas P. Christie most recently served as the Director of the 
Operational Evaluation Division for the Institute for Defense Analyses, 
a position he held from 1992 to 2001. With IDA, he previously served as 
the Assistant Director of the Operation Evaluation Division from 1989 
to 1992.
    Mr. Christie has had a long and distinguished career in public 
service. From 1987 to 1989, he was the Director, Program Integration, 
in the Office of the Under Secretary of Defense (Acquisition). Prior to 
that, he was the Deputy Assistant Secretary of Defense (Programs and 
Resources) in the Office of the Assistant Secretary of Defense 
(Acquisition and Logistics) from 1986 to 1987, the Deputy Assistant 
Secretary of Defense/Deputy Director (General Purpose Programs) in the 
Office of the Assistant Secretary of Defense (Program Analysis and 
Evaluation) from 1979 to 1986, the Deputy Assistant Secretary of 
Defense (Operational Test and Evaluation) in the Office of the 
Assistant Secretary of Defense (Program Analysis and Evaluation) from 
1977 to 1979, and the Director, Tactical Air Division, in the Office of 
the Deputy Assistant Secretary of Defense (General Purpose Programs), 
Office of the Assistant Secretary of Defense (Program Analysis and 
Evaluation) from 1973 to 1977.
    Prior to his service at the Pentagon, Mr. Christie served at the 
Air Force Armament Laboratory, Eglin AFB, Florida, first as an Analyst 
in the Special Studies Branch from 1962 to 1965, then as the Chief of 
the Analysis Branch from 1965 to 1970, and finally as the Director of 
the Weapon System Analysis Division from 1970 to 1973. Prior to this, 
he began his professional career as an Analyst in the Ballistics 
Division at the Air Proving Ground Center, also at Eglin AFB, Florida.
    Mr. Christie graduated from Spring Hill College in 1955 with a B.S. 
degree in Mathematics and from New York University in 1962 with an M.S. 
degree in Applied Mathematics. Over the years, Mr. Christie has 
received numerous awards and citations for his outstanding performance. 
These awards include the Presidential Rank, Distinguished Executive 
Award (1983), the Presidential Rank, Meritorious Executive Award (two 
awards-1980 and 1987), the Department of Defense Distinguished Civilian 
Service Award (four awards--1979, 1981, 1983, and 1989), and the Air 
Force Scientific Achievement Award (two awards--1965 and 1970).
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Thomas P. 
Christie in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas Philip Christie.

    2. Position to which nominated:
    Director, Operational Test and Evaluation, Office of the Secretary 
of Defense, Department of Defense.

    3. Date of nomination:
    May 24, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 28, 1934; Pensacola, Florida.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Kathleen Ann Lawson.

    7. Names and ages of children:
    Son, Kevin Patrick Christie--29 years old.
    Daughter, Stephanie Marie Christie--26 years old.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Attended Pensacola Catholic high School 1947-1951; graduated May 
27, 1951.
    Attended Spring Hill College in Mobile, Alabama 1951-1955; received 
Bachelor of Science Degree on May 24, 1955.
    Attended Courant Institute of Applied Mathematics, New York 
University 1961-1862; received Master of Science Degree in Applied 
Mathematics in September 1962.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1989-1991: Research Analyst--responsible for evaluations of weapon 
system performance.

    Operational Evaluation Division, Institute of Defense Analyses, 
1801 N. Beauregard Street, Alexandria, VA 22311.
    1992-2001: Director, Operational Evaluation Division--responsible 
for managing and directing staff of about 100 research analysts in the 
evaluation of weapon system performance.

    Institute for Defense Analyses, 1801 N. Beauregard Street, 
Alexandria, VA 22311.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
        <bullet> 1955-1973: Series of increasingly responsible 
        positions as federal employee working for the U.S. Air Force 
        Armament Laboratory at Eglin AFB, FL.
        <bullet> 1973-1977: Director, Tactical Air Forces; Office of 
        the Assistant Secretary of Defense for Program Analysis and 
        Evaluation (ASD/PA&E); Office of the Secretary of Defense 
        (OSD).
        <bullet> 1977-1979: Deputy Assistant Secretary of Defense for 
        Operational Test and Evaluation; ASD/PA&E; OSD.
        <bullet> 1979-1985: Deputy Assistant Secretary of Defense for 
        General Purpose Programs; ASD/PA&E; OSD.
        <bullet> 1985-1987: Deputy Assistant Secretary of Defense for 
        Programs and Resources; ASD (Production and Logistics); OSD.
        <bullet> 1987-1989: Director, Program Integration; Office of 
        the Under Secretary of Defense for Acquisition; OSD.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    As Director of Operational Evaluation Division, I was a member of 
IDA's Board of Directors. I resigned from this position when the 
President nominated me for the position of Director, Operational Test 
and Evaluation. I have no other business relationships.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    I am a member of the organizations listed below. I hold no office 
in any of these.
    National Defense Industrial Association.
    National Historic Preservation Trust.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    I have never held any office with a political party nor have I ever 
been a candidate for any public office.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    I have not been a member, held any office in or rendered any 
services to a political party or election committee during the last 5 
years.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    During the past 5 years, I have not made a political contribution 
of $100 or more to any individual, campaign organization, political 
party, PAC, or similar entity.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Four-year scholarship to Spring Hill College, 1951-1955.
    Air Force Scientific Achievement Award, 1965 and 1970.
    DOD Distinguished Civilian Service Award, 1979.
    Presidential Rank, Meritorious Executive Award, 1980 and 1987.
    First Oak Leaf Cluster to DOD Distinguished Civilian Service Award, 
1981.
    Second Oak Leaf Cluster to DOD Distinguished Civilian Service 
Award, 1983.
    Presidential Rank, Distinguished Executive Award, 1983.
    Third Oak Leaf Cluster to DOD Distinguished Civilian Service Award, 
1989.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Other than several technical reports authored during my time as a 
weapon analyst at Eglin AFB in the 1955 to 1973 time frame and a few 
technical reports I co-authored as an IDA research staff member in 
1990, I have authored no other books, articles, or other published 
materials.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Thomas P. Christie.
    This 29th day of May, 2001.

    [The nomination of Thomas P. Christie was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]


NOMINATIONS OF ALBERTO J. MORA TO BE GENERAL COUNSEL OF THE NAVY; DIANE 
 K. MORALES TO BE DEPUTY UNDER SECRETARY OF DEFENSE FOR LOGISTICS AND 
 MATERIAL READINESS; STEVEN J. MORELLO, SR., TO BE GENERAL COUNSEL OF 
THE ARMY; WILLIAM A. NAVAS, JR., TO BE ASSISTANT SECRETARY OF THE NAVY 
  FOR MANPOWER AND RESERVE AFFAIRS; AND MICHAEL W. WYNNE TO BE DEPUTY 
       UNDER SECRETARY OF DEFENSE FOR ACQUISITION AND TECHNOLOGY

                              ----------                              


                         FRIDAY, JUNE 22, 2001

                                       U.S. Senate,
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SR-222, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Warner, 
and Inhofe.
    Committee staff members present: David S. Lyles, staff 
director.
    Majority staff members present: Daniel J. Cox, professional 
staff member; Creighton Greene, professional staff member; 
Gerald J. Leeling, counsel; Peter K. Levine, general counsel; 
and Michael J. McCord, professional staff member.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Judith A. Ansley, deputy staff 
director for the minority; Brian R. Green, professional staff 
member; William C. Greenwalt, professional staff member; 
Ambrose R. Hock, professional staff member; George W. Lauffer, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Ann M. Mittermeyer, minority counsel; Suzanne 
K.L. Ross, research assistant; Cord A. Sterling, professional 
staff member; Scott W. Stucky, minority counsel; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Kristi M. Freddo, Jennifer L. 
Naccari, and Michele A. Traficante.
    Committee members' assistants present: Barry Gene (B.G.) 
Wright, assistant to Senator Byrd; Elizabeth King, assistant to 
Senator Reed; Eric Pierce, assistant to Senator Ben Nelson; 
John A. Bonsell, assistant to Senator Inhofe; George M. Bernier 
III, assistant to Senator Santorum; and Douglas Flanders, 
assistant to Senator Allard.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee will come to order. The 
committee meets today to consider the nominations of Alberto 
Jose Mora to be General Counsel of the Department of the Navy; 
Diane K. Morales to be Deputy Under Secretary of Defense for 
Logistics and Material Readiness; Steven John Morello, Sr. to 
be General Counsel of the Department of the Army; William A. 
Navas, Jr. to be Assistant Secretary of the Navy for Manpower 
and Reserve Affairs; and Michael W. Wynne to be Deputy Under 
Secretary of Defense for Acquisition and Technology.
    On behalf of the entire committee I would like to welcome 
you and your families and friends to the Armed Services 
Committee. We have a tradition on this committee of asking the 
nominees if they would like to introduce family members who 
might be present. Mr. Morello, I am going to start with you.
    Mr. Morello. I would be very pleased and proud to introduce 
to you this morning my daughter, Rebecca, who traveled here 
from Michigan. Rebecca is a recent graduate of Ladywood High 
School in Livonia. She had a 4.0 and has been admitted to the 
University of Michigan this fall to study electrical 
engineering. Also with me this morning, Mr. Chairman, is a very 
distinguished citizen of Michigan and a friend and mentor of 
mine, Mr. Heinz Prechter.
    Chairman Levin. We know Mr. Prechter well and I've been an 
admirer of his for a long time. We welcome him and your 
daughter.
    Mr. Wynne.
    Mr. Wynne. Thank you, Mr. Chairman. It is my pleasure to 
acknowledge the support of my spouse of 35 years, Barbara. I 
appreciate that.
    Chairman Levin. Ms. Morales.
    Ms. Morales. My family is in Texas, but I am surrounded by 
friends; Mr. Jim Guerin is with me, as is Mr. Maurice Henri, 
and Mr. and Mrs. Kenney.
    Chairman Levin. Welcome everybody.
    Mr. Navas.
    Mr. Navas. Mr. Chairman, Senator Warner, I would like to 
introduce my spouse of 36 years, Wilda. She is here to give me 
the support she has given me throughout our careers.
    Chairman Levin. Welcome.
    Mr. Mora.
    Mr. Mora. Thank you, Mr. Chairman. I would like to 
introduce my wife Susan Talalay; my son Alexander and his pet 
flamingo, whom you recognized earlier; my in-laws Dr. Paul 
Talalay and his wife Dr. Pamela Talalay.
    Chairman Levin. We welcome them all, particularly the 
flamingo. I do not think we have ever had a flamingo here.
    Chairman Warner. Well, they had an alligator in New York 
City. [Laughter.]
    We welcome you all and your family and friends and pets. 
The presence of families reminds us of the sacrifices that 
family will be asked to make on your behalf. Each of you has a 
previous record of public service so your families I think have 
some idea of what they are in for. Certainly the members of 
this committee know the strain public service puts on normal 
family life. None of our nominees would be able to serve in 
these positions without the support of their families. We thank 
you in advance for the hardships that you will put up with 
during the service of your loved ones.
    I would like to extend a particularly warm welcome to Mr. 
Morello who grew up in Michigan as he indicated. His dad worked 
for General Motors for 43 years. Mr. Morello went to the 
University of Detroit Law School. He currently works as vice 
president and general counsel and secretary of Prechter 
Holdings in South Gate. Heinz Prechter is here this morning and 
many of us know Mr. Prechter.
    Mr. Morello also serves as a Roman Catholic Deacon in the 
Archdiocese of Detroit and he also, I believe, worked as a 
staff assistant many years ago for Senator Phil Hart, who was a 
great friend of all of his colleagues and a mentor of mine; and 
the person, of course, for whom the Hart Senate Office Building 
was named.
    Mr. Wynne also has a strong Michigan connection, having 
served as vice president of General Dynamics Land Systems in 
Sterling Heights, Michigan for about 10 years.
    Mr. Moore, if I can say so, although he doesn't have a 
Michigan connection, I believe, is a graduate of my alma mater, 
Swarthmore College. It's obvious that the Department decided 
that it is a good idea to butter up the new chairman of the 
committee. [Laughter.]
    I just want to encourage them to continue that practice.
    Mr. Mora, Ms. Morales, Mr. Navas may not have had the good 
fortune of these connections but all three have previously held 
important positions in the Federal Government and they are 
well-qualified for the positions to which they have been 
nominated. The General Counsels of the Army and Navy are among 
the top legal officials in the Department of Defense. The 
Assistant Secretary of the Navy for Manpower and Reserve 
Affairs is charged with the well-being of our men and women in 
uniform. The two nominees for Deputy Under Secretary positions 
will have important responsibilities for the management of the 
Pentagon's huge and complex acquisition and logistics systems.
    The committee has a responsibility to get a clear 
understanding of our nominees' views on the national security 
issues which they are going to face and we look forward to 
their testimony.
    Senator Warner, do you have a opening statement?

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Mr. Chairman, I commend you for the manner 
in which you have opened today's hearing. The Chairman and I 
are classmates. We came to the Senate at the same time. We 
consider ourselves very valued friends and yet there are times 
at which we have to differ. But this is not one of those times. 
This is family day before our committee and it is very 
heartening to have so many friends and families come long 
distances. We thank you for doing that.
    This is an important day in your life. Some have been 
before the Senate on confirmation before. I have a piece of 
paper which is 32 years old when I sat in that seat seeking to 
get the advice and consent of the Senate. It is one of my more 
valued possessions. More importantly, my children treasure 
copies of it. Fortunately I kept a few copies of the official 
record of that hearing. To see the young people here, they will 
in years forth take great pride in what you have done.
    I interviewed all of you yesterday and in every case you 
are leaving more lucrative positions in the private sector to 
take on that responsibility known as public service. As a 
taxpayer I thank you.
    I also wish to encourage you to avail yourself of this 
committee and I say that we have the most remarkable 
professional staff, I think, of any committee on Capitol Hill. 
It is not just because I have been privileged as has my good 
friend Senator Levin, to be chair and co-chair of this 
committee. But it really goes back decades. Our predecessors 
have always been able to attract eminently qualified young men 
and women to come here and serve on our staff.
    You will find in your assignments more opportunity and need 
to work with our staff. You will find they are by and large bi-
partisan. Their sole objective is to strengthen and keep strong 
America's defenses, and the well-being of the men and women who 
wear the uniform and the civilian force that work with them.
    I congratulate our President and the Secretary of Defense 
and others who were able to persuade you to come into public 
service again. I wish you well and I think you will look back 
on this as I have as one of the high points of your 
distinguished career.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Warner. I will put the balance of my statement in 
the record which is exactly parallel to everything you said in 
your opening statement. At this time, I also place in the 
record the opening statement of Senator Strom Thurmond.
    [The prepared statements of Senator Warner and Senator 
Thurmond follow:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in welcoming the nominees and their families. We have a 
distinguished group of nominees before us this morning.
    Mr. Michael W. Wynne is a graduate of the United States Military 
Academy at West Point and served for 7 years on Active Duty in the Air 
Force. He has an impressive record of achievement in industry, retiring 
as a Senior Vice President from General Dynamics with responsibility 
for International Development and Strategy. During the course of his 
career, he was instrumental in the development of various complex and 
vital programs, including the F-16, Main Battle Tank, and Space Launch 
Vehicles including the Atlas and Centaur.
    Ms. Morales has an impressive record of government and private 
accomplishments. From 1990 to 1993, a period encompassing United States 
military operations in Desert Shield/Desert Storm, she served as Deputy 
Assistant Secretary of Defense for Logistics and played a substantial 
role in meeting the challenging airlift and sealift requirements 
associated with those operations. Ms. Morales has previously served as 
a board member on the Civil Aeronautics Board, with OMB, and in the 
Department of the Interior as Deputy Assistant Secretary for Policy. 
She has also been successful in business, and, if confirmed, will bring 
her extensive experience to bear in this important position.
    William Navas--Major General Navas--is no stranger to this 
committee. He has had a distinguished career in the Army, with Active 
Duty service in Vietnam and Germany. More recently, from 1995 to 1998, 
General Navas was Director of the Army National Guard, and, prior to 
that, served as Deputy Assistant Secretary of Defense for Reserve 
Affairs, Vice Chief of the National Guard Bureau, and in various other 
highly responsible positions. If confirmed, he will undoubtedly adjust 
quickly to the Navy and its unique ways of doing business.
    Steven J. Morello is also a product of Army training, having served 
on Active Duty in the Judge Advocate General's Corps from 1978 to 1982 
with service in Germany and at Fort Sheridan. He has worked for the 
Northrop Corporation, and has assembled an impressive record of 
professional and personal achievements. Thank you for your willingness 
to serve in this important capacity.
    Finally, Alberto J. Mora, the nominee for General Counsel of the 
Navy, has prior government experience as a Foreign Service Officer in 
the Department of State and, from 1989 to 1993, as General Counsel of 
the U.S. Information Agency. He too has had an impressive legal career 
and is also highly qualified for the position to which he has been 
nominated.
    Our nominees have a wealth of experience and accomplishments. I 
believe they will excel in the position to which they have been 
nominated. We welcome them and their family members and look forward to 
their comments and responses today.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman: Mr. Chairman, I join you and our Ranking 
Member, Senator Warner, in welcoming this distinguished group of 
nominees. I want to congratulate each of them on their nomination and 
thank them for their willingness to serve our Nation in the challenging 
positions for which they have been selected.
    Mr. Chairman, I especially want to recognize General Navas. As the 
former Director of the Army National Guard and his distinguished 
service in various positions associated with the Reserve components, he 
will bring a unique perspective to the Office of the Assistant 
Secretary of the Navy for Manpower and Reserve Affairs. Our Nation is 
fortunate to have individuals of his caliber willing to serve.
    I am confident that each of you will provide a valuable 
contribution to the security of our great Nation and especially to the 
men and women who wear the uniform of our military services. Good luck 
as you take on your new responsibilities.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you for your warm and perceptive 
words. Our nominees have all responded to the committee's pre-
hearing policy questions and our standard questionnaire. 
Without objection these responses are going to be made a part 
of the record. The committee has also received the required 
paperwork on each of the nominees and we will be reviewing that 
paperwork to make sure it is in accordance with the committee's 
requirements.
    The first round of questions will be limited to 6 minutes 
on the usual basis, which is the early-bird rule. I think we 
have a vote at 10:30 this morning, so we'll see if we cannot 
get a least one round in before that vote. There are certain 
standard questions which we ask every nominee who comes before 
the committee and you also have submitted responses to advance 
policy questions. You agreed to appear as witnesses before 
congressional committees when called and to ensure that 
briefings, testimony, and other communications are provided to 
Congress.
    I will now ask you the following questions. Have you 
adhered to applicable laws and regulations governing the 
conflict of interest?
    Mr. Morello. Yes, sir.
    Mr. Wynne. Yes sir, Mr. Chairman.
    Ms. Morales. Yes, Mr. Chairman.
    Mr. Navas. Yes, Mr. Chairman.
    Mr. Mora. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions, which would appear to presume the outcome of the 
confirmation process?
    Mr. Morello. No, sir, I have not.
    Mr. Wynne. No, Mr. Chairman.
    Ms. Morales. No, Mr. Chairman.
    Mr. Navas. I have not, Mr. Chairman.
    Mr. Mora. No, sir.
    Chairman Levin. Will you ensure that the Department 
complies with deadlines established for requested 
communications including prepared testimony and questions for 
the record and hearings?
    Mr. Morello. Yes, sir, I will.
    Mr. Wynne. Yes, Mr. Chairman.
    Ms. Morales. Yes, Mr. Chairman.
    Mr. Navas. Yes, Mr. Chairman.
    Mr. Mora. Yes, sir.
    Chairman Levin. Will you cooperate and provide any 
witnesses and briefers in response to congressional requests?
    Mr. Morello. Yes, Mr. Chairman.
    Mr. Wynne. Yes, sir.
    Ms. Morales. Yes, sir.
    Mr. Navas. Yes, sir.
    Mr. Mora. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Mr. Morello. Yes, sir, to the fullest extent of the law.
    Mr. Wynne. Yes, sir.
    Ms. Morales. Yes, Mr. Chairman.
    Mr. Navas. Yes, they will.
    Mr. Mora. Absolutely.
    Chairman Levin. Let me now call upon our nominees for any 
opening remarks they would like to make. Mr. Morello, let me 
start with you.
    Senator Warner. Mr. Chairman, might I indulge the chair and 
the members of the committee. I would like the record to 
reflect that I am now going to speak on behalf of the nominee, 
Ms. Morales. I am pleased to do so. She is a Virginian, having 
come from Texas 20 years ago. She came to serve in the Reagan 
administration as the Department of Interior's Deputy Assistant 
Secretary for Policy and later as a member of the Civil 
Aeronautics Board. After leaving government for several years 
to work in private industry, she returned to serve with 
distinction in the Bush I administration as the Deputy 
Assistant Secretary of Defense for Logistics. I will put the 
balance of the statement in the record, Mr. Chairman, given 
that our vote is upon us here momentarily.
    I take great pride in introducing my constituent and indeed 
one that I have great admiration for. Thank you very much.
               Prepared Statement by Senator John Warner
    Mr. Chairman, I am delighted to introduce Ms. Morales to the 
committee as the nominee for this important position.
    Ms. Morales has an impressive record of government and private 
accomplishments. From 1990 to 1993, a period encompassing United States 
military operations in Desert Shield/Desert Storm, she served as Deputy 
Assistant Secretary of Defense for Logistics and played a substantial 
role in meeting the challenging airlift and sealift requirements 
associated with those operations. Ms. Morales has previously served as 
a board member on the Civil Aeronautics Board, with OMB, and in the 
Department of the Interior as Deputy Assistant Secretary for Policy. 
She has also been successful in business, and, if confirmed, will bring 
her extensive experience to bear in this important position. She has my 
strongest endorsement.

    Chairman Levin. Thank you very much, Senator Warner. I 
wonder if either Senator Reed or Senator Inhofe might have an 
opening comment?
    Senator Inhofe. No. I do have some questions.
    Chairman Levin. Mr. Morello.

  STATEMENT OF STEVEN J. MORELLO, SR., NOMINEE TO BE GENERAL 
                      COUNSEL OF THE ARMY

    Mr. Morello. Good morning Mr. Chairman, distinguished 
members of the committee. It is indeed a high honor and great 
privilege for me to be here before you this morning. I thank 
you for giving me this honor of a hearing. I am also very 
grateful to the President of the United States, Secretary 
Rumsfeld, and Secretary White for giving me this opportunity 
and for reposing the trust in me that they have. I have 
prepared remarks, which I have brought. I would like to ask 
with your kind permission that they be inserted in the record.
    Chairman Levin. They will be made part of the record as 
will be the other opening comments which our nominees might 
wish to place there.
    [The prepared statement of Mr. Morello follows:]
                Prepared Statement by Steven J. Morello
    Thank you, Mr. Chairman and distinguished members of the committee. 
It is a great honor and privilege to appear before this committee as 
the nominee to be the General Counsel of the Army. I am very grateful 
to the President, the Secretary of Defense, and the Secretary of the 
Army for the trust and confidence that they have placed in me. If 
confirmed, I pledge that I will work as hard as I possibly can to serve 
the soldiers, civilians, and families that make the United States Army 
the most powerful and professional army in the world.
    When I joined the Army on active duty in 1978 as an officer in the 
Judge Advocate General's Corps, I could never have imagined that I 
would be joining it again, albeit in a different capacity, at this time 
in my life. I thoroughly enjoyed my assignments in Germany as a young 
captain in the late seventies and early eighties; I'll never forget the 
pride I felt while serving in the Berlin Brigade when it was the symbol 
of this country's commitment to freedom. After returning to the United 
States for a subsequent assignment with the United States Army 
Recruiting Command, I stayed in the Army Reserve until my civilian 
career made it impossible for me to continue my military service at 
that time.
    When I was serving in the Berlin Brigade, I could hardly have 
imagined that so much change in the world could occur in such a 
relatively short period of time. Just as the international security 
environment has changed, I am keenly aware that the Army has changed to 
continue to meet the needs of the Nation. I understand that the 
Secretary of Defense and the Secretary of the Army are committed to 
developing a strategy and to setting forth a program that will meet 
those needs well into the future.
    Should I be confirmed, I look forward to serving on their team as a 
way of once again joining the Army to continue serving the Nation 
during this landmark era of change and transformation. By serving on 
their team, I would also be serving with the Army team of Active, 
Reserve, and National Guard soldiers who distinguish themselves every 
day by their dedication and hard work. Finally, I would look forward to 
continuing my relationship with the members of The Judge Advocate 
General's Corps with whom I once proudly served. Alongside outstanding 
civilian lawyers, they provide legal services on a wide range of legal 
and policy issues that confront the Army around the nation and the 
world.
    I believe that my prior military service, my experience in the 
legislative branch, and my extensive corporate background have prepared 
me for assuming the position of Army General Counsel. If confirmed, I 
pledge my best effort every day to be worthy of the trust placed in me 
and to uphold the proud tradition of selfless service that 
characterizes the dedicated soldiers, civilians, and families of the 
United States Army who protect and defend our Nation around the world.
    Mr. Chairman, if confirmed, I look forward to a strong working 
relationship with you and this committee. I would be pleased to answer 
any questions at this time. Thank you.

    Chairman Levin. Mr. Wynne.

   STATEMENT OF MICHAEL W. WYNNE, NOMINEE TO BE DEPUTY UNDER 
      SECRETARY OF DEFENSE FOR ACQUISITION AND TECHNOLOGY

    Mr. Wynne. Mr. Chairman, members of this committee, I am 
honored to appear before you today as a candidate for the 
position of Deputy Under Secretary of Defense for Acquisition 
and Technology. I would also like to thank President Bush, 
Secretary Rumsfeld, Under Secretary Aldridge for their 
confidence in me for this nomination that you are considering. 
I look forward to joining this very vibrant Department and 
working with Congress and this committee on the many challenges 
facing the Department. Mr. Chairman, I would also like to thank 
you for acknowledging my spouse and I would like to submit the 
rest of my remarks for the record.
    [The prepared statement of Mr. Wynne follows:]
                  Prepared Statement by Michael Wynne
    Mr. Chairman and members of the committee, I am honored to appear 
before you today as a candidate for the position of Deputy Under 
Secretary of Defense for Acquisition and Technology.
    I would like to thank President Bush, Secretary Rumsfeld and Under 
Secretary Aldridge for their confidence in me, and for this nomination 
that you are considering. I look forward to joining this very vibrant 
Department of Defense team and working with Congress and this committee 
on the many challenges facing the department. I look forward to 
applying the skills that I have learned in many differing assignments 
in and out of the military and Defense Industry to the noble cause of 
the defense of my county in support of the warfighters. I acknowledge 
the presence and support of my wife, Barbara, who has stood by me 
throughout all of those assignments in addition to raising our 
wonderful daughters.
    There is much work to be done. Mr. Aldridge has laid down some 
challenging goals, and I look forward to working with him and the rest 
of the Acquisition, Technology, and Logistics team to achieve these 
goals. I look forward to my own portfolio as well, as it is important 
to make the most use of our time to more effectively confront the major 
issues and give each their proper attention. I'm certain that I will be 
creating some of my own subordinate goals as I meet my new team and 
become familiar with the problems they face on a daily basis.
    Mr. Chairman, I thank you for the opportunity to appear here today 
to introduce myself and provide you insight into my approach to the 
challenging post that I have been nominated for. If I am confirmed, I 
look forward to working with Congress and especially with this 
committee. I know that this committee has been a leader and partner in 
many defense acquisition initiatives, and I appreciate your interest in 
continuing to improve defense management. I will be happy to answer any 
questions you might have.

    Chairman Levin. Ms. Morales.

   STATEMENT OF DIANE K. MORALES, NOMINEE TO BE DEPUTY UNDER 
   SECRETARY OF DEFENSE FOR LOGISTICS AND MATERIAL READINESS

    Ms. Morales. Mr. Chairman, I have no opening statement 
other than to express my appreciation to you, Senator Levin, 
for your prompt consideration of our nominations. I am 
confident that President Bush and Secretary Rumsfeld appreciate 
these efforts. I would also like to thank Senator Warner for 
his kind introduction, and members of the Armed Services 
Committee.
    It is an honor and a privilege to appear before this 
committee today. I am grateful to the President and the 
Secretary of Defense for their confidence and trust in 
nominating me for this important position; one entrusted with 
ensuring that the soldiers, sailors, airmen, and marines have 
the logistics and material support necessary to carry out their 
mission. If confirmed, I look forward to returning to the 
Department and to working with this committee. Mr. Chairman, 
thank you, and Senator Warner, thank you and I am prepared to 
answer your questions.
    Chairman Levin. Thank you.
    Mr. Navas.

  STATEMENT OF WILLIAM A. NAVAS, JR., NOMINEE TO BE ASSISTANT 
     SECRETARY OF THE NAVY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Navas. Mr. Chairman, Senator Warner, members of the 
committee, it is my distinct honor to appear before you today 
seeking confirmation for the Assistant Secretary of the Navy 
for Manpower and Reserve Affairs. I also want to express my 
appreciation to President Bush, Secretary Rumsfeld and 
Secretary England for this opportunity to continue serving our 
Nation at this time in a civilian capacity in support of our 
sailors and marines, active and Reserve, civilians and their 
families. I fully support the Secretary of the Navy and his 
strategic thrusts to support the President's vision. These 
center on combat capability, people, technology, and business 
practices.
    If confirmed, I plan to concentrate our efforts on building 
a team that would focus primarily on the people thrust that 
would make the Secretary's vision a reality. Our goal will be 
to create an environment where our men and women can excel at 
their chosen profession unimpeded by factors that divert their 
attention from work and sap their morale. Should I be 
confirmed, we will create definite objectives and establish a 
plan of action that will develop appropriate metrics to measure 
our progress.
    I plan to work in close cooperation and coordination with 
the Under Secretary of the Navy, the Assistant Secretaries, the 
Service Chiefs and the commanding officers to achieve our 
primary purpose of combat readiness, understanding that people 
are our most important resource and accepting that premise as 
our core value. If confirmed, I will strive to provide our 
sailors and marines competitive compensation, quality housing, 
sufficient workplace resources, adequate health care and 
challenging training and a reasonable OPTEMPO.
    To close, Mr. Chairman, with the committee's indulgence, I 
would like to thank my wife of 36 years--Wilda--who is here 
supporting me today as she has done throughout the years. She 
represents our children, their spouses, and our granddaughter. 
Thank you again for your kind attention and I look forward to 
your questions.
    [The prepared statement of Mr. Navas follows:]
              Prepared Statement by William A. Navas, Jr.
    Mr. Chairman, members of the committee, it's my distinct honor to 
appear before you today in seeking confirmation as the Assistant 
Secretary of the Navy for Manpower and Reserve Affairs. I also want to 
express my appreciation to President Bush and to Secretary England for 
this opportunity to continue serving our Nation, this time in a 
civilian capacity. I fully support the Secretary of the Navy in his 
four strategic thrusts in support of the President's vision.
    If confirmed, I plan to concentrate our efforts in building a team 
that will focus primarily on the ``people'' thrust to make the 
Secretary's vision a reality. Our goal will be to create an environment 
where our men and women can excel at their chosen profession unimpeded 
by factors that divert their attention from work and sap their morale.
    Understanding that people are our most important resource, and 
accepting that premise as our core value, if confirmed, we will strive 
to provide our sailors and marines competitive compensation, quality 
housing, sufficient workplace resources, adequate health care, 
challenging training, and reasonable OPTEMPO.
    Should I be confirmed, we will clearly define these objectives, 
establish a plan of action and develop the appropriate metrics to 
measure our progress. We will work closely with the Department of 
Defense, the Service Staffs and Congress to achieve our primary purpose 
of combat readiness.
    Thank you for your kind attention. I look forward to your 
questions.

    Chairman Levin. Thank you very much.
    Mr. Mora.

STATEMENT OF ALBERTO J. MORA, NOMINEE TO BE GENERAL COUNSEL OF 
                            THE NAVY

    Mr. Mora. Thank you, Mr. Chairman. It is a distinct honor 
to appear before you this morning to be considered by committee 
for possible confirmation as the 20th General Counsel of the 
Department of the Navy. I want to thank you personally, Mr. 
Chairman, for your gracious recognition of my wife and family. 
I want to thank you and the members of the committee, as well 
as the majority and minority staffs, for the many courtesies 
you have extended to me during the confirmation process.
    In particular, I wish to express my appreciation for the 
committee's decision to schedule this hearing so rapidly 
following my nomination by the President. This gesture 
constitutes yet another example of the committee's long support 
of the military services.
    I would not be here, Mr. Chairman, but for the decision 
made by President Bush and Secretary of the Navy England to 
entrust me with this responsibility. I am grateful to them both 
for the opportunity to add my name to the list of those men and 
women who serve or have served in the Navy and Marine Corps.
    My debt to the President and the Secretary can only be 
repaid by dedication to duty and the diligent discharge of my 
responsibilities. If I am confirmed, I can pledge to you as I 
have to them that I will exercise my stewardship of the office 
of General Counsel to the fullest extent of my ability and 
energies. I ask that the remainder of my remarks be included in 
the record, Mr. Chairman.
    [The prepared statement of Mr. Mora follows:]
                 Prepared Statement by Alberto J. Mora
    It is a distinct honor to appear before you this morning and to be 
considered by the committee for possible confirmation as the 20th 
General Counsel of the Department of the Navy. I want to thank you 
personally, Mr. Chairman, for your gracious recognition of my wife and 
family, and I want to thank you and the members of the committee, as 
well as the majority and minority staffs, for the many courtesies 
extended to me during the confirmation process. In particular, I wish 
to express my appreciation for the committee's decision to schedule 
this hearing so rapidly following my nomination by the President--this 
gesture constitutes yet another example of this committee's long 
history of support for the military services.
    I would not be here, Mr. Chairman, but for the decision made by 
President Bush and Secretary of the Navy England to entrust me with 
this responsibility. I am grateful to them both for the opportunity to 
add my name to the list of those men and women who serve or have served 
in the Navy and Marine Corps. My debt to the President and the 
Secretary can only be repaid by dedication to duty and the diligent 
discharge of my responsibilities. If I am confirmed, I can pledge to 
you--as I have to them--that I will exercise my stewardship of the 
Office of General Counsel to the fullest extent of my ability and 
energies.
    From America's War of Independence to Desert Storm and with 
countless battles in between, our sailors and marines, along with their 
sister services, have fought and won America's wars and guarded the 
peace. They have helped our Nation achieve the security that has proven 
such a necessary element in the development of our freedoms and our 
prosperity. By helping also shield our allies and friends, they have 
been instrumental as well in creating the conditions that have made 
possible the dramatic growth and propagation of the democratic ideal 
that has flowered worldwide since 1989.
    The attack on the U.S.S. Cole reminds us that service in the 
uniformed Navy and Marine Corps can and does entail risk and often 
sacrifice. Those of us whom you may decide to confirm to serve on 
Secretary England's team understand this sacrifice and accord it its 
proper value. We recognize that this sacrifice may include loss of 
life. We know, too, that sacrifice can take more subtle forms: for 
example, separation from family and friends; distance from home; long 
hours; financial sacrifice; the discipline to place duty and country 
before self; and other types of hardship that can appear in many other 
shapes and guises.
    In my view, the willingness of the men and women of the Navy and 
Marines to place themselves in harm's way and incur these sacrifices 
imposes a moral obligation on the rest of us, particularly those who 
would assume responsibility for the civilian leadership for the 
Department of the Navy, to fully comply with our duty to ensure that 
the Navy and Marine Corps are supported, trained, and equipped at a 
level superior to any challenge that they may expect to encounter. That 
obligation takes the form of a covenant that runs from the Department 
in three directions: to the men and women who wear the uniform; to you 
in Congress who help provide the guidance and resources needed to 
properly deploy the Navy; and to the fathers and mothers who lend their 
sons and daughters to the Navy and Marines with the expectation that 
they will be sustained in the discharge of their duties.
    Mr. Chairman, I look forward to assuming these responsibilities and 
honoring his covenant. If confirmed, I look forward to working closely 
with you and this committee to meet the needs of the Navy and Marine 
Corps and to meet the expectation of our Nation that we will do right 
by them.

    Chairman Levin. Thank you very much. Ms. Morales and Mr. 
Wynne, let me ask you the following question. The President's 
February budget blueprint states that ``with 23 percent in 
estimated excess infrastructure, it is clear that new rounds of 
base closures will be necessary to shape the military more 
efficiently''. Do each of you agree or disagree that we have 
excess infrastructure in the Department of Defense today? Ms. 
Morales, let me start with you.
    Ms. Morales. It intuitively can be argued that the force 
structure has been drawn down further than the infrastructure, 
but I believe that both Secretaries Rumsfeld and Wolfowitz are 
deferring comment on this issue until the Defense Review has 
been completed.
    Chairman Levin. OK. Mr. Wynne.
    Mr. Wynne. Thank you, Mr. Chairman. I am not as familiar 
with base closure as I will be when I am confirmed and learn 
more about this process. However, I believe that no opportunity 
for efficiencies should be off the table. Everything should be 
balanced against the future needs of the soldiers, sailors and 
airmen. We should carefully review every opportunity for cost 
efficiency and then judge it on its merits.
    Chairman Levin. Mr. Navas, relative to Vieques, you are the 
Chairman of the American Veterans Committee for Puerto Rico 
Self Determination. I understand the committee has not taken a 
position on the Navy's continued use of Vieques. However, there 
was a press release that has been brought to our attention, 
which was issued by the committee of which you are chair 
earlier this year. It has the following statement: ``The 
Vieques issue should not overshadow a century of commitment to 
the United States by the American citizens of Puerto Rico. 
Instead it should remind us that despite all their contribution 
to the United States the people of Puerto Rico remain second-
class citizens. Vieques is a symptom of a relationship which 
does not provide any mechanism for the people of Puerto Rico to 
address their just grievances.''
    Can you tell us what your own position is on the Navy's use 
of Vieques? Also, would you comment on that situation, the law 
which provides for a referendum of the people of Vieques, and 
the recent events on Vieques?
    Mr. Navas. Yes, Mr. Chairman. The issue is a very complex 
one. On one side, as a combat veteran of 33 years in the Army, 
I strongly support realistic training as a principal 
underpinning of combat readiness. At the present time, Vieques 
provides the Navy and the Marine Corps team with an ideal place 
in which to conduct this training. That basically is the issue 
on one side.
    On the other hand, the work that I did with the committee 
basically saw Vieques and the issue in Vieques as a symptom of 
a broader issue, which is the fact that the relationship 
between the United States and Puerto Rico for the last hundred 
years has not been resolved to the point where the people of 
Puerto Rico would have the right to self-determination and 
sovereignty. There are basically two options at the extreme of 
the spectrum; Puerto Rico becoming the 51st State of the Union 
or Puerto Rico becoming an independent republic in its own 
terms.
    In those cases the relationship vis-a-vis the issues would 
have been dealt differently. I am torn between basically two 
issues. The issue at one hand of the requirement for combat 
readiness which I strongly believe and I have supported. Then 
on the other hand a more broader issue of resolving at some 
point the hundred year history of disenfranchisement of over 
3.8 million Puerto Ricans citizens who do not have the 
opportunity to vote for the President or who do not have 
representation in our system.
    Chairman Levin. What role would you expect to playing with 
regard to Vieques if confirmed?
    Mr. Navas. Mr. Chairman, my portfolio obviously is 
personnel issues. I have not been involved in any of the 
issues. I would play whatever role the Secretary of the Navy 
sees fit for me. I would say intuitively that I might be able 
to provide him with some background, some insight on the 
broader issues of Puerto Rico because of the fact that I was 
born and educated and have been, except for the past 6 years, 
an official resident of Puerto Rico.
    Chairman Levin. Mr. Mora, if confirmed, what are your 
objectives relative to Vieques and what role would you be 
playing?
    Mr. Mora. Sir, as chief legal counsel of the Department of 
the Navy, my role would be as a legal advisor to the 
Department. The Vieques issue has, of course, significant legal 
dimensions, but it is fundamentally a policy issue centering on 
the readiness and the training of the military. I will, of 
course, advise the Secretary and other members of the 
Department of the Navy and the Marine Corps on the legal issues 
that may arise. Then beyond that I would cooperate with the 
Secretary with whatever additional task or request for 
information or support he might care to give me.
    Chairman Levin. Thank you, my time is up.
    Senator Warner.
    Senator Warner. Mr. Chairman I will follow on with your 
line of questions relative to Vieques. First an observation. In 
the response you made to the chairman's questions, you 
indicated that Puerto Rico has suffered and that well may be 
the case because of the difference in the way it is treated as 
a territory versus a state. But the record should reflect that 
the people of Puerto Rico have never voted to express their 
desire to become a state. Am I not correct on that?
    Mr. Navas. Senator Warner, the issue is that we have never 
had a congressionally-sanctioned referendum which defines very 
clearly what are the options to the issue of Puerto Rico. 
Actually there is a letter by the four congressional 
committees, that have jurisdiction over Puerto Rico dated 1996, 
stating that the question of Puerto Rico's political status 
remains open and unresolved.
    What we have had historically are referenda that have been 
done locally. They are not binding with the U.S. Congress and 
as such the Congress of the United States, who basically has 
the authority over Puerto Rico under the territorial clause of 
the Constitution, has never put some options there, binding 
options, for the people of Puerto Rico. That was attempted last 
year in the 106th Congress with the Young Bill that did not 
progress.
    Senator Warner. But in the meantime the laws of the United 
States have a force and effect in Puerto Rico. Is this 
committee to assume that you will respect and work to support 
the laws of the United States as relate to the Commonwealth of 
Puerto Rico?
    Mr. Navas. Most definitely, sir.
    Senator Warner. I thank you very much. You have a 
distinguished career and it may well be that your knowledge in 
depth of the issues could be of help to the Department of the 
Navy and indeed the Secretary of Defense as these critical 
issues evolve.
    Mr. Navas. Sir, I hope I can be a part of the solution.
    Senator Warner. I hope that you give your objective 
viewpoints to the Secretary of the Navy and Secretary of 
Defense.
    Mr. Navas. Yes, sir.
    Senator Warner. Mr. Wynne, I want to ask you about 
contracting out. The DOD contracted for approximately $54 
billion worth of services last year, which is almost about as 
much as DOD paid for the procurement of weapons systems. The 
significance of this type of contracting has led this committee 
to ask the GAO to identify private sector ``best practices'' in 
services contracting, similar to what the GAO did for the 
committee in the area of systems acquisition. Do you believe 
that some changes are necessary to ensure that the DOD 
effectively acquires services from the private sector? If this 
is a bit technical, I would suggest you take that question for 
the record.
    Mr. Wynne. Thank you sir. I certainly will take that 
question for the record. I am concerned about the disciplining 
of services procurement.
    [The information follows:]
                        Acquisition of Services
    Mr. Wynne. As Senators Warner and Levin correctly noted, DOD has 
steadily increased its investment in services over the last few years. 
Given this increased investment, we believe it will be beneficial to 
establish a process to better inform the Defense acquisition Executive 
and the Service Secretaries of the approach being taken on these 
significant investments. Our objective is to ensure that our approach 
to the acquisition of services reflects sound acquisition practices and 
capitalizes on industry best practices. Such a process is currently 
under discussion and we expect to implement a new oversight process in 
the near future.

    Senator Warner. I think this is very important because it 
is an ever-growing issue and we want to keep it in balance. 
What we receive has got to measure up to what the private 
sector receives. I want to ask a question of Ms. Morales. One 
of the most challenging issues you will have to address is how 
to effectively deliver the required equipment and maintenance 
to our military forces. Maintenance is now performed by 
uniformed personnel on the flight lines and in the motor pools, 
by Federal and civilian employees at the depots, and by the 
private sector in a number of locations.
    Assuring we retain the capability to perform the required 
maintenance in the most efficient and effective manner will be 
one of your most important responsibilities. If confirmed, what 
plans do you have to improve the entire equipment maintenance 
system and what role do you envision for each of the elements 
of that system?
    Let me give you a case in point. The Navy at the moment has 
an escalating problem with regard to the maintenance of its 
aircraft because many are very old. Spare parts are lacking 
simply because the manufacturers of those parts have gone on to 
other business and some of these parts have to literally be 
hand crafted. The cost of the maintenance of naval aircraft 
each year is rising at an exponential rate. I hope that you can 
turn to the spare parts and maintenance issue early on in your 
responsibilities. To what extent have you given some thought to 
that?
    Ms. Morales. Senator, the number one concern and challenge 
to material readiness throughout the Department is the rising 
cost to maintain these older systems. In the newer weapons 
systems reliability and sustainability are being engineered 
into the systems. The first thing that I believe needs to be 
done, if confirmed, is to review an end-to-end study of the 
logistics systems and take apart each phase of it and see what 
we can do to improve the situation. But the high cost of spare 
parts for these older systems, the fact that suppliers are 
limited, and that, as you have said, many have gone out of 
business is going to be a continuing challenge.
    Senator Warner. I thank the witness. I thank you, Mr. 
Chairman. My time is up.
    Chairman Levin. Senator Warner, thank you.
    Senator Reed.
    Senator Reed. Thank you very much Mr. Chairman and thank 
you all for not only today but for your dedication to public 
service throughout your careers. Let me first address a 
question to Mr. Wynne and Ms. Morales. Both individually and 
collectively you will make critical decisions that affect the 
industrial base of the United States, the defense industrial 
base through acquisitions, through procurement policies, 
through logistic policies. Sometimes decisions appear in terms 
of just bottom line analysis in favor of doing one thing, but 
when you consider the nature of the industrial base the 
decision could change.
    My general question is to what extent do you think it is 
important to consider the survivability of the industrial base 
in terms of the whole range of issues, aircraft production, 
submarine production, and even suppliers of uniforms? Mr. Wynne 
first.
    Mr. Wynne. Thank you, Senator. My feeling is that each case 
has to be considered on its merits. There is right now a lull 
in purchasing, which creates an overcapacity situation. The 
questions are where do you want to be 15 years from now and 
what are you going to do 15 years from now for industrial 
support. So, yes, I agree with you that more things have to be 
considered than just price. I think it is a best value 
situation and that is the way I will do it if I am confirmed, 
sir.
    Senator Reed. Thank you, sir.
    Ms. Morales.
    Ms. Morales. I agree with Mr. Wynne and we have had several 
conversations about this.
    Senator Reed. Thank you very much. Mr. Mora and Mr. 
Morello, you will be in the General Counsels of the Army and 
Navy. Besides making a bet on the Army-Navy football game, you 
will have a lot of other interesting things to do, one of which 
is the ongoing concern about environmental issues affecting 
both the Army and the Navy. This, I believe, will be amplified 
by the Vieques situation because whatever resolution comes 
about in Vieques, there will be additional pressure on training 
areas throughout the Army and Navy by local community groups.
    My general question is what is your position at this point 
about the environmental laws? My specific question is what is 
your position about a broadened appreciation of the interaction 
between the local communities and military facilities? Mr. 
Morello.
    Mr. Morello. Thank you, Senator. In my preparation for 
these hearings I was heartened to learn that the Army General 
Counsel's office does indeed have a number of attorneys who 
just specialize in environmental issues. I think that shows or 
demonstrates to me at least the seriousness with which the 
Secretary of the Army places upon environmental issues. Local 
concern is always an important part of the input that would be 
taken with regard to an appropriate environmental plan of 
action regarding any kind of training or other base activity.
    If confirmed, I would continue with that sensitivity based 
upon some of my experiences in private practice. I know it is 
very important, especially to the people who live anywhere 
around areas that may be impacted, to make sure that we do the 
best we can and be good environmental citizens.
    Senator Reed. Thank you. Mr. Mora.
    Mr. Mora. Thank you, Senator. In the week of briefings I 
have had at the General Counsel's office, Senator, I would say 
the preponderance of the issues have touched upon environmental 
matters in one way or the other. It is clear that preoccupation 
with environmental law and compliance is one of the principal 
preoccupations of the Navy. In fact, from what I have seen, I 
am not aware that there is almost any Navy operation or 
activity that does not have some sort of environmental 
consideration which the Navy takes into account.
    Obviously, the Navy will obey the environmental laws and 
wishes to be a good neighbor in all the communities in which it 
is a member. By the same token, it is clear that environmental 
restrictions which seem to be growing provide an ever-growing 
restriction to training and readiness in the Navy. These are 
difficult questions that have to be balanced, Senator. We can 
promise our full attention to these issues.
    Senator Reed. Thank you, Mr. Mora.
    Mr. Navas, let me ask you a question with respect to 
personnel policy, which I believe you will be involved with. 
There have been some studies of the quality of life and 
retention and one of them was completed by Admiral Jeremiah for 
Secretary Rumsfeld. He suggested a complete overhaul of the 
human resources architecture of the total force. He talked 
about changes including doing away with the up-or-out promotion 
policy and early investing in portability military retirement 
benefits. I would add to that list probably consideration of 
the overall evaluation system for both officers and non-
commissioned officers. What are your views about reforming the 
system of both benefits and of evaluations within the Navy?
    Mr. Navas. Senator, I have not had an opportunity to review 
those proposals. Like I mentioned in my opening statement, one 
of the thrusts of the Secretary of the Navy is people with what 
that encompasses and we are looking at programs that would deal 
with a quality of life and a quality of service of our sailors, 
marines, and the civilians. So if confirmed, I see that as a 
primary issue of priority for the Department and I will work 
very diligently with the other elements of the Department of 
Defense and Congress to try to provide that quality of life and 
quality of service to our sailors and marines.
    Senator Reed. Thank you very much, Mr. Navas. Thank you all 
for your testimony and again for your service to the country.
    Chairman Levin. Senator Reed, thank you.
    Senator Inhofe.
    Senator Inhofe. Mr. Chairman, are we going to have another 
round after this?
    Chairman Levin. As many rounds as we need.
    Senator Inhofe. OK, fine. Let's go back to the question 
that the answer that you gave, Mr. Navas, concerning your 
background and this group that you are the chairman of. It has 
the term self-determination in it, but specifically what is the 
name of the group?
    Mr. Navas. Sir, the group is a committee called the 
American Veterans for Puerto Rico Self-Determination.
    Senator Inhofe. You implied in the answer to Senator 
Warner's question that while there have been several elections, 
several referenda, there have not been any that had restricted 
options. I would assume that you would support a referendum 
that said statehood or independence. Is this accurate?
    Mr. Navas. Sir, at the end of the day, the two pure options 
for sovereignty or self-determination for Puerto Rico would be 
either a State of the Union under the Constitution of the 
United States or an independent republic. There might be a 
third option. I have not studied that because every time you 
look at that option it always remains as a transition option, 
it's an option that could go beyond the two options. So the 
ultimate two would be those two, yes, sir.
    Senator Inhofe. Do you think that is what your governor 
would like to see?
    Mr. Navas. Sir, I cannot speak for the governor. I have not 
been a resident, an official resident of Puerto Rico for the 
last 6 years.
    Senator Inhofe. Since you support self-determination would 
you support self-determination for the citizens of Vieques as 
is called for in the referendum that will come in November?
    Mr. Navas. Sir, there is a law on the books based on a 
referendum for a very specific issue. As long as that is the 
law, I think we would support it. Of course, I am aware that 
there is a thrust to try to get relief from that law, and I am 
not at this point in the capacity to comment one way or the 
other.
    Senator Inhofe. Well, Mr. Mora. Do you have any comments on 
that from a legal perspective? Do you see any problem with the 
language in the law that we passed in the Defense Authorization 
Bill last year?
    Mr. Mora. Senator Inhofe, I have not had the opportunity to 
analyze that legislation in any great detail.
    Senator Inhofe. I don't think there is. I just wanted to 
make sure that you didn't already have a predetermined opinion 
on it.
    Mr. Mora. I have no predetermined opinion on the law.
    Senator Inhofe. OK, Ms. Morales, I am very interested. I 
would like to have a courtesy call at some time in this process 
so we can get into some of the issues. When you were working in 
the two administrations back we had the 60-40 rule that would 
address the core work in our depots. That is now 50-50. 
However, we have changed the status of COS and ICS so that it's 
really essentially the same as it was before.
    Recently we have been operating, I think, for 2 consecutive 
years, on national security waivers. Do you have any 
suggestions for changing the law as it affects depot 
maintenance?
    Ms. Morales. Senator, I think it would be premature to have 
any suggestions at this point.
    Senator Inhofe. If it does not change, would you do 
everything you could to get this out about operating on 
national security waivers. It was pretty obvious to all of us 
in advance that we are going to have some problems. A lot of it 
is legitimate and that is the Kosovo and Bosnia operations and 
the effects that they have had. But would you make a real 
effort to comply with the law so that we don't have to go into 
these waivers?
    Ms. Morales. Senator, it is my intent to comply with the 
law. If confirmed, I believe that we need to examine this issue 
further. I would be most pleased to sit down with you and speak 
about it.
    Senator Inhofe. I look forward to that. Senator Warner 
brought out the spare parts problems. You are going to be 
shocked when you get around and see things like the spare parts 
problem. Every installation you go to you are going to see the 
same thing that we have seen. Across all the services. It is a 
very serious problem and it is one that is going to surprise 
you relative to the way it was some 10 years ago. I think that 
is something that has to be addressed. We have helicopters that 
are sitting out there for spare parts. It is a very serious 
readiness problem.
    Ms. Morales. A complete review of the depot maintenance 
operations throughout this country is one of my highest 
priorities.
    Senator Inhofe. We have some pretty creative ideas on 
things that we can do. A lot of times people are talking about 
outsourcing. There are partnership programs and we have some 
successful ones in my state, but I think we will respond to 
some of these concerns that people will have about the costs. I 
look forward to working with you on that. We have one 
particular project I want to work with you on. So I look 
forward to visiting with you.
    My time is expired but on the second round I want to expand 
a little bit on some of the concerns that were expressed by 
some of the other Senators here on the environment and the cost 
of complying with some of these environmental regulations. 
There are at least three of you that will be dealing with that. 
I look forward to the next round.
    Chairman Levin. Thank you, Senator Inhofe. On that very 
issue let me ask Ms. Morales this question. In your response to 
our pre-hearing questions, you stated that you support the 
basic principle of the Federal Facilities Compliance Act that 
Federal facilities, including DOD facilities, should be subject 
to the same standards as comparably-situated civilian 
facilities. However, you also stated that there may be cases in 
which environmental regulations or regulators should ``make 
allowances'' for DOD facilities. I am just wondering how you 
reconcile those two statements. Should DOD facilities be 
subject to the same standards as comparably-situated civilian 
facilities, or should they be given preferential treatment?
    Ms. Morales. Environmental laws should apply to defense 
facilities and I believe that is how the law is stated. 
However, Congress did permit allowances for the President to 
make special considerations of the application of compliance 
for national security reasons. I don't believe that the 
Department would take lightly its advice to the President to do 
so, but that provision is there.
    Chairman Levin. Mr. Mora, unlike other parties facing 
substantial costs for the abatement and removal of asbestos, 
the Navy has not sought to recover any of these costs from the 
asbestos manufacturers. In your response to the pre-hearing 
questions, you said that you had not yet been briefed on this 
subject. If you are confirmed, will you look into this issue, 
will you report back to the committee promptly on the 
desirability of pursuing such a remedy?
    Mr. Mora. Yes, sir, I would be happy to do so.
    Chairman Levin. Mr. Wynne, you have spent much of your 
career in weapons systems development and acquisition and the 
priorities that you have established in your response to the 
pre-hearing questions all deal with weapons systems. However, 
the Department of Defense now spends almost as much purchasing 
services as it does purchasing weapons systems. Do you agree 
that the Department's acquisition, training and guidance need 
to place a greater emphasis on best practices in the 
acquisition of services?
    Mr. Wynne. Sir, if confirmed, I will certainly look into 
the acquisition of services. It is my belief that we need to 
bring a little more discipline to that practice as it grows to 
a larger percentage of the defense budget.
    Chairman Levin. Should the Department make a greater effort 
to advance and reward acquisition personnel who play a 
successful role in managing the acquisition of services?
    Mr. Wynne. Sir, I am not familiar with all of the 
attributes of the personnel contracting for services. We have a 
very professional workforce and I am looking forward to working 
with them. I do think we need to bring a little more attention 
to the procurement of services as the committee is concerned.
    Chairman Levin. Will you work with us to make sure that the 
Department implements best practices in this area such as the 
use of performance-based service contracting and the 
competitive award of task orders.
    Mr. Wynne. Sir, I have long admired the committee for their 
work in partnership with the Department to achieve procurement 
excellence and this would be no exception.
    Chairman Levin. This is one example of what Senator Warner 
was referring to in his opening statement of where the 
committee staff can be very helpful. We look forward to you 
working with that staff on these kind of issues.
    Mr. Wynne. Thank you, Mr. Chairman. I appreciate that 
offer.
    Chairman Levin. Ms. Morales, over the years the military 
services have complained about the overhead fees the DLA 
charges for the purchases out of inventory, which I understand 
can exceed 20 percent. Do you believe it would cost more or 
less for the services to purchase and stock these items 
themselves?
    Ms. Morales. Senator, that is a very interesting question. 
I think I would like to take that under advisement.
    Chairman Levin. Would you take a look at that after you are 
confirmed, if you would, and then let us know what your 
findings are?
    Mr. Morello and Mr. Mora, although the Judge Advocate 
Generals are primarily responsible for providing legal advice 
and services regarding the UCMJ and the administration of 
military discipline, the General Counsels have historically 
played a role in civilian oversight of these programs. If 
confirmed, how will you assist the Secretaries in providing 
civilian oversight of these important functions. Either one of 
you. Mr. Morello? Mr. Mora?
    Mr. Morello. Mr. Chairman, thank you very much for that 
question. I already had an opportunity to have a brief 
discussion with the Army's Judge Advocate General, Maj. Walt 
Huffman. The discussions were very cordial and very friendly 
and reminded me a lot of the days when I served on Active Duty 
as a captain. I really admired the Judge Advocate General.
    The General Counsel of the Army has statutory 
responsibilities to provide professional guidance to all the 
lawyers in the Department of the Army. I look forward to 
working very closely with the Judge Advocate General, offering 
professional guidance wherever it could be helpful and 
providing advice to the Secretary of the Army with regard to 
the kinds of needs that the Department might have from time to 
time.
    Chairman Levin. Thank you. Mr. Mora.
    Mr. Mora. Mr. Chairman, in my briefings and in my 
investigations on the Department of the Navy, I have found an 
extremely close, cordial and cooperative relationship between 
the JAG Corps and the Office of General Counsel. I too have met 
with Admiral Guter who is the JAG and I fully anticipate to 
continue to build on this relationship of collaboration and 
cooperation.
    Chairman Levin. Thank you. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I would like to 
follow on that important question with two other observations 
to our General Counsels, Mr. Mora and Mr. Morello. There is, in 
my judgement, nothing more important to the integrity of the 
men and women of the Armed Forces than the integrity of the 
promotion system. Enlisted, yes, but perhaps more so because of 
the complexity of the officer system.
    Each of you will have a role in working with your 
Secretaries and your Departments as a whole, as the case may 
be, on preserving that integrity. From time to time it is 
necessary to review it perhaps to change it. I just wish that 
each of you would give the assurance that that will be right at 
the top of your agendas.
    In every system and every walk of life there is 
imperfection. This committee, in its responsibilities to 
preserve the integrity of the promotion system and in its 
oversight and its advise and consent role, is the trustee for 
the entire Senate in making our recommendations to the Senate 
to vote affirmatively on the slates of officers that come here 
from the President of the United States. It is necessary from 
time to time to ferret out, root out those who somehow have 
worked their way through the system, but have incidents or 
chapters in their careers which could be viewed as adverse and 
could well affect the judgment of this committee in its advise 
and consent role.
    Each of you have that responsibility for your respective 
Secretaries or the Departments as a whole to make sure that 
this committee is kept informed and given all the facts 
necessary to discharge our constitutional function to advise 
and consent in that promotion system. Do I have your assurance 
Mr. Morello?
    Mr. Morello. Yes, sir. Absolutely.
    Senator Warner. Mr. Mora?
    Mr. Mora. Yes, sir, you do.
    Senator Warner. One further question for Mr. Wynne. The 
acquisition workforce needs a little morale building. It has 
sort of been downplayed through the years. Regrettably, for a 
decade or more we have had to put greater emphasis on expending 
funds for deployments rather than those necessary to get our 
new systems and weapons adequately maintained, a steady 
improvement in that infrastructure.
    I just hope that you will, having visited with you at 
length yesterday, instill in this workforce a sense of real 
importance to modernize the Armed Forces of our United States. 
Instill in those in the civil service system, and indeed the 
uniform side, a sense of the importance of modernizing the 
Armed Forces of the United States under this administration. 
Will you do that?
    Mr. Wynne. Thank you for your concern, Senator. I think 
that is a marvelous attribute and I will certainly pursue that, 
if confirmed.
    Senator Warner. I thank the chair.
    Chairman Levin. Thank you, Senator Warner.
    Senator Inhofe, Senator Reed passes.
    Senator Inhofe. Mr. Mora and Morello, and perhaps also Ms. 
Morales. You should form a law firm. [Laughter.]
    Getting back to the question that was asked by the chairman 
on the BRAC process and the need for further rounds. It happens 
I don't fully agree with the chairman in this area, but there 
is one area where we might agree. I was elected to the House of 
Representatives the year that the BRAC process passed into law, 
and it was a very good one because its been very effective for 
four rounds.
    There is one problem that I see with it, and that is 
anytime you start one, every city located near any type of an 
installation goes out and pays $100,000 or more to consultants, 
and everybody comes here to try to influence their case. We 
refer to this as municipal purgatory.
    It would seem to me that with the combined brilliance of 
the three of you working on this problem, there ought to be a 
way of taking categories, maybe something like primary training 
and flight training, and say there is not a problem in this 
area. There is not excess capacity in this area and at least 
let some installations go out. You could do the same thing with 
the our logistics centers where we went down from five working 
at 50 percent capacity to three now working at close to 100 
percent capacity. Because that problem has been taken care of 
they would be excluded from the future system. Do any of you 
have any ideas on how this could be done? Would this be 
desirable?
    Mr. Morello. Senator, I would be happy to address that. I 
have not had an opportunity to study the base closing and 
realignment statute in any kind of detail. I do understand that 
it is a statute that works well and I am sensitive to the 
concern which you have raised. I do believe that if I am 
confirmed I would look forward to working with my colleagues in 
coming up with a way to deal with the issue that you raised and 
get back and work with yourself and other members of the 
committee who might have similar concerns.
    Senator Inhofe. Mr. Mora.
    Mr. Mora. Sir, let me echo what Mr. Morello just indicated. 
I too would hope that we could work, and I am confidant we can 
work cooperatively with the other services to ensure uniform 
procedures that are efficient in this process.
    Senator Inhofe. Ms. Morales.
    Ms. Morales. I would agree that we could certainly look at 
opportunities.
    Senator Inhofe. It is a huge problem and I am sure you are 
aware of it down in Texas. They have the same problem.
    Ms. Morales. I actually worked in the 1993 BRAC session for 
the NADEP at Pensacola. I am aware of all of the emotions that 
the communities and workers go through. It is very disruptive, 
yet I believe there are times when you have to focus on the 
overall goal, which is to align the infrastructure with the new 
force structure. It's definitely going to be a challenge to 
everyone.
    Senator Inhofe. I would only ask, and I don't expect to 
have an answer, that you explore ways that this can be done. It 
would provide a great service for an awful lot of communities.
    When you mention that there is some latitude in terms of 
the enforcement of the environmental laws in military 
installations, were you referring to the fact that you can have 
Presidential waivers? Is this what you were referring to? I had 
not heard this before.
    Ms. Morales. It is my understanding, without having gone 
into great study of the environmental laws that Congress has 
provided, that the President can make certain waivers in 
compliance.
    Senator Inhofe. I was a little embarrassed and had to check 
because I was not aware of that. I don't believe they have ever 
done that before. Let's discuss the Fort Bragg/Camp Lejeune 
red-cockaded woodpecker issue. Because of the efforts that were 
made by the military, they are creating more serious problems 
for themselves.
    On two different visits down there they had these red areas 
that were excluded from training purposes because they are 
suspected habitats for the red-cockaded woodpecker. Now they 
have done such a good job, Mr. Chairman, that those are now 
expanding. They are taking more and more of the training area 
that was there. This needs to be addressed in some way because 
they are creating a greater problem for themselves.
    At Camp Pendleton they came close to losing 70 percent of 
their training area. In training areas, whether they be live 
ranges, such as Vieques, or training areas such as those at 
Fort Bragg and Camp Lejeune, this is a very serious problem. I 
would like to ask that you look into these to see if there is 
something that can be put in place. If we don't do it, we are 
using up our training areas by the good job that we are doing.
    Ms. Morales. I agree with you, Senator, and if confirmed I 
look forward to finding common sense approaches to training and 
supporting training.
    Senator Inhofe. That would be a very good thing to do and I 
look forward to that. I would like to be in on that with you. I 
happened to be exposed to this. The tortoise watchers between 
Yuma and Twentynine Palms. It really is a pretty good job. It 
is one I am sure is sought after.
    Ms. Morales. I think the services do their very best to 
comply with the law.
    Senator Inhofe. That is an area that is very much a concern 
to all of us. Last, if I could, Mr. Chairman, just go back to 
the Vieques issue. The problem we are having there is that it 
is a unique place. While I make the statement that I have 
examined every possible alternative, I think that's an 
exaggeration because there might be some that we don't know 
about.
    Of those that were in the Grace-Fallon Report and the Rush 
Report, I have had occasion to see the problems that are there. 
We are dealing with a very unique situation. We're dealing with 
a situation that when we deploy someone from the East Coast 
that ultimately goes to the Persian Gulf, the chances are 
better than 50-50 that they will find themselves in a combat 
environment and they must have integrated training. Of course, 
the battlegroup includes aircraft carriers and F-18s and F-14s 
doing their thing.
    We had a very unfortunate thing that happened on March 12th 
on the range in Kuwait where five of our troops were killed. 
After reading the report, I believe that it was because they 
did not have live training. That was right at the time when 
they said you could do inert training instead of live training. 
I would hope all of you, particularly you, Mr. Navas, with your 
background, would have a chance to really talk about the 
seriousness of this.
    I want to make sure that you keep in mind that paramount is 
young Americans who are going into combat environments. We 
shouldn't be talking about this as a political issue. It is my 
understanding that there are even some, Mr. Navas, that feel so 
strongly about it that they have signed petitions to secede 
from Puerto Rico. Maybe Mr. Chairman, that is the answer. I 
don't know. If you would keep us involved in your decisions and 
your thinking as this thing progresses, I would appreciate it 
very much.
    Mr. Navas. I will, sir.
    Chairman Levin. Do we know of any Senators on their way? If 
not, what we will do then is adjourn now. We will not have to 
come back after this vote. We thank you all. We thank your 
families again. Alexander, your flamingo brought your daddy 
good luck. [Laughter.]
    Or is that a pelican? I can't see what that is. It's a 
flamingo. Thank you all. Congratulations. We'll hope to bring 
these to the floor as soon as we have a committee to vote on 
them.
    [Whereupon, at 10:42 a.m., the committee was adjourned.]

    [Prepared questions submitted to Alberto J. Mora by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                     June 18, 2001.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                    Albert J. Mora.
cc: Hon. John Warner,
     Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes. I am committed to the complete and effective 
implementation of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been fully implemented. It is 
my understanding that the legislation has clarified the 
responsibilities and authorities of the Secretary of Defense, the 
Secretaries of the Military Departments, the Joint Chiefs of Staff, and 
the Chairman of the Joint Chiefs. These reforms also clearly defined 
the roles and responsibilities of the CINCs.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most significant aspects of these Department of Defense 
reforms have been the overall strengthening of the civilian leadership 
and enhanced clarity of the chain of command. The enhanced ability of 
staffs and the combatant commanders-in-chief to plan and execute their 
assigned missions has been demonstrated both in peace and conflict.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control, improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles, which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am aware that, last year, the Services and OSD supported 
changes to Goldwater-Nichols that would improve the efficiency and 
effectiveness of Joint Officer Management while upholding the spirit 
and intent of the original reforms. However, I understand that there is 
currently consideration to initiate changes to last year's proposal 
with which I am not completely familiar. If confirmed, I will be in 
position to better understand and assess whether such proposals are 
warranted. Implementation of Goldwater-Nichols has enhanced the ability 
of the Services to act quickly and jointly. However, like all 
innovative efforts, this may warrant review and assessment in light of 
experience. If anything, the ``next level of jointness'' ought to be 
ensuring that the Services and our allies are fully interoperable.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Navy?
    Answer. The General Counsel is the chief legal officer of the 
Department, and legal opinions issued by the General Counsel are the 
controlling legal opinions within the Department. The General Counsel 
provides legal advice, counsel and guidance to the Secretary, the Under 
Secretary and the Assistant Secretaries, and their staffs. He is also 
responsible for providing legal services throughout the Department in a 
variety of fields, including business and commercial law, real and 
personal property law, fiscal law, civilian personnel and labor law, 
intellectual property law, environmental law, and litigation. In 
addition, the General Counsel serves as the Debarring Official and 
Designated Agency Ethics Official for the Department.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, I believe my work as General Counsel for the 
U.S. Information Agency (USIA), elsewhere in the Federal Government, 
and in the private sector will serve me well as the General Counsel. 
For 4 years from 1989 to 1993, as General Counsel for USIA, I advised 
senior government officials in the USIA and had extensive dealings with 
the White House, National Security Council, State Department and other 
foreign affairs agencies, Office of Management and Budget, Government 
Accounting Office, and Congress. I managed the legal staff serving the 
USIA and dealt with a wide range of legal issues.
    My experience in private legal practice has provided extensive 
experience in problem solving, client counseling, dispute resolution, 
and management. This experience has provided me a broad experience in 
the law, with an emphasis on international litigation and transactions, 
much of it in the foreign affairs context.
    Lastly, my tenure for the past 6 years as a Governor on the 
Broadcasting Board of Governors has provided significant, hands-on 
experience in agency management and, notably, in the policy 
formulation, budgetary, congressional, and inter-agency coordination 
aspects of work in a federal foreign policy. This expanded on and 
reinforced my prior experience, abroad and in the United States, gained 
as a State Department Foreign Service Officer.
    Cumulatively, this experience, I believe, has well prepared me to 
take on the duties of General Counsel.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Navy?
    Answer. I believe I possess the essential legal expertise and 
management skills to be the General Counsel. I continue to learn more 
about the Department and the work of the General Counsel. Additionally, 
I hope to benefit from the wisdom and knowledge of those who have 
devoted themselves to service in the Navy and Marine Corps, as well as 
the career civil servants in the Department. If confirmed, I will seek 
out their advice.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary England would prescribe for you?
    Answer. If confirmed, I anticipate that Secretary England will 
expect me to perform the duties noted above in response to the first 
question in this section. I anticipate he will want my candid and 
objective legal advice concerning issues, opportunities and problems as 
they arise. I further anticipate he will want me to work closely with 
the Judge Advocate General to ensure the faithful execution of the laws 
throughout the Department of the Navy, with the General Counsel of the 
Department of Defense and others on matters of mutual interest or 
concern.
    Question. In carrying out your duties, how will you work with the 
Judge Advocate General of the Navy?
    Answer. The General Counsel and the Judge Advocate General need to 
have a relationship that includes full consultation, close cooperation 
and careful coordination. This relationship is essential to ensure the 
faithful execution of the laws throughout the Department. If confirmed, 
I am confident that this close and collegial professional relationship 
will continue.
    Question. In carrying out your duties, how will you work with the 
Staff Judge Advocate to the Commandant of the Marine Corps?
    Answer. The position of Staff Judge Advocate for the Marine Corps 
is established in Title 10, Sec. 5046. While the Staff Judge Advocate's 
primary responsibility is advising the Commandant on military justice 
matters, if confirmed, I expect that our respective offices will 
consult and coordinate on any matters of mutual interest or concern 
that may arise.
    Question. How are the legal responsibilities of the Department of 
the Navy allocated between the General Counsel and the Judge Advocate 
General?
    Answer. I understand that the Judge Advocate General has primary 
responsibility for the administration of the military justice system. 
If confirmed, I expect that he and I will consult and cooperate on 
matters of mutual interest or concern relating to military justice, 
bearing in mind his statutory duties and special expertise in this 
area. With respect to civil law matters involving Navy and Marine Corps 
components, my understanding is that primary responsibility is divided, 
by major subject area, between the Office of the General Counsel and 
the Office of the Judge Advocate General. From time to time, I expect, 
there will arise matters in which responsibilities overlap. In such 
instances, and particularly with regard to litigation, I believe that 
cooperation and coordination between the two offices is imperative.
    Question. Do you believe that this allocation--which differs from 
that in the Army and the Air Force--serves the interests of the 
Department of the Navy?
    Answer. Yes. If confirmed, I will diligently monitor the division 
of responsibilities for legal services and work to ensure that the 
legal needs of the Naval Services are well served. If I detect any 
deficiencies, I will address them.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. While the General Counsel of the Department of the Navy 
reports to the Secretary of the Navy, the General Counsel of the 
Department of Defense is the chief legal officer of the Department of 
Defense. If confirmed, I will work closely with the DOD General 
Counsel, Jim Haynes, on matters of mutual interest or concern. I look 
forward to a most productive working relationship.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Navy?
    Answer. Change is a fact of life for the Navy/Marine Corps team. 
The single greatest challenge for me in this period of change and 
transformation is to ensure sound legal advice and quality legal 
services are available on a timely basis. Additionally, the General 
Counsel must be prepared to meet the need for such advice and services 
in connection with policy developments and other events, foreseen and 
unforeseen, that may occur.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will review the resources, organization and 
operation of the Office of the General Counsel, and implement whatever 
changes may be necessary to enhance its ability to confront these 
challenges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the General Counsel of the 
Department of the Navy?
    Answer. I am not aware of any serious problems.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed, I will address any serious problems I 
discover in as expeditious a manner as possible.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues, which must be addressed by the General Counsel of the 
Department of the Navy?
    Answer. My foremost priority will be to ensure that the Department 
is provided the highest quality of legal advice and services and that 
uniformed and civilian attorneys work together to accomplish that goal. 
If confirmed, I will explore this issue and develop more defined 
priorities.
                    recruiting and retention issues
    Question. How do you assess your ability to hire and retain top 
quality civilian attorneys and provide sufficient opportunity for 
advancement?
    Answer. It is my understanding that the Department has been able to 
hire top quality civilian attorneys but that the increasing financial 
disparity between Government attorneys and privately employed attorneys 
has made this more difficult in certain areas of expertise. At this 
time, I am not able to judge independently the long-term ability of the 
Department to hire, retain and advance civilian attorneys. If 
confirmed, I will work with the senior staff of the Office of the 
General Counsel to address these issues.
    Question. Does the Department of the Navy, in your view, have a 
sufficient number of Navy and Marine Corps judge advocates on active 
duty to perform the missions assigned to the Judge Advocate General's 
Corps?
    Answer. Based on an informal discussion with the Judge Advocate 
General, I understand the demand for judge advocates has grown 
significantly, both in commands desiring judge advocates and in 
emergent taskings on important issues. In this era of intense media 
scrutiny, complexity of domestic and international law in national 
security issues, environmental concerns and the penchant by many to 
litigate, there is an increasing demand for sophisticated, specialized 
legal services. If confirmed, I will work with the Judge Advocate 
General to address this issue.
    Question. In your view, what incentives to successful recruiting 
and retention of judge advocates need to be implemented or established?
    Answer. The Judge Advocate General Corps clearly must be able to 
attract and keep quality judge advocates. As a civilian practitioner, I 
know the competition for legal talent is intense. I understand recent 
initiatives by Congress and the Navy have helped alleviate some of the 
financial pressures facing our young judge advocates and have improved 
retention. I support these efforts and if confirmed will support others 
in the future.
                        military justice matters
    Question. Since Article 6 of the Uniform Code of Military Justice 
gives primary jurisdiction over military justice to the Judge Advocates 
General, how do you see your functions in this area with regard to the 
Judge Advocate General of the Navy?
    Answer. In Article 6, Congress gave the Judge Advocates the 
responsibility to ``make frequent inspections in the field in 
supervision of the administration of military justice.'' If confirmed, 
as the senior legal official within the Department of the Navy, I will 
have an interest in the administration of military justice within the 
Department of the Navy. I am certain that the Judge Advocate General 
will keep me informed on matters of interest in military justice.
    Question. In your view, how should the General Counsel approach 
military justice matters--both in terms of specific cases and general 
policy issues to provide useful advice without generating problems of 
unlawful command influence?
    Answer. If confirmed, I envision a close working relationship with 
the Judge Advocate General in which we share information and work 
collaboratively when necessary to resolve issues, whether they are 
policy issues or issues arising from a specific case. I believe that a 
close working relationship with the Judge Advocate General and reliance 
on his special expertise will avoid any potential issues of command 
influence.
    Question. In recent years, there have been a number of cases in 
which military members have been accused of adultery. Concerns have 
been raised about the consistency with which these cases have been 
handled.
    What do you see as the role of the General Counsel of the 
Department of the Navy in ensuring the Uniform Code of Military Justice 
is enforced in a fair and consistent manner?
    Answer. If confirmed, as the senior legal official within the 
Department of the Navy, I will have an interest in the fair and 
consistent administration of military justice within the Department of 
the Navy. The Judge Advocate General and I will share information and 
work collaboratively when necessary to resolve issues.
    Question. Do you see a need for any changes in either the law or 
its implementation in this area?
    Answer. I have not had the opportunity to be fully briefed on this 
subject. If confirmed, I intend to work with the committee, the Judge 
Advocate General, and my staff to develop an informed opinion on this 
matter.
    Question. In a recent Navy military justice case, charges alleging 
serious national security violations against a petty officer were 
dismissed with prejudice. Both the Article 32 Investigating Officer and 
the defense attorneys were critical of the government's handling of the 
investigation and case preparation. Congressional scrutiny of the case 
raised serious issues about the complexities of espionage and national 
security cases, and an investigation was initiated by the Department of 
Defense Inspector General to examine the processing of the case.
    If confirmed will you assure the committee you will examine the 
processing of this case and ensure that the Department of the Navy is 
fully prepared to investigate and prosecute national security cases in 
an appropriate manner?
    Answer. Yes. I look forward to the results of the investigation and 
reviews initiated by the Department of Defense Inspector General and 
the Judge Advocate General. If confirmed, I will support the 
implementation of necessary improvements to the process.
                        whistleblower protection
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes.
    Question. If confirmed, what actions would you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will act to ensure that military members 
whose actions are protected by the Act are not subject to illegal 
reprisals or retaliation. I also understand that the current Department 
of the Navy practice is to brief the requirements of the Act to all 
prospective commanding officers and executive officers, and address the 
requirements of the Act in the curriculum of eight separate courses of 
instruction for Navy and Marine Corps personnel. If confirmed, I will 
ensure that this emphasis on the Act in formal Navy training courses 
will continue.
                            judicial review
    Question. What is your understanding of the appropriate role of the 
Article III courts in the review of military activities?
    Answer. The courts have recognized that they are ill suited to 
standing in judgment on military matters and would argue that for most 
military matters there is little, if any, role for the Article III 
courts to play. The Constitution provides that Congress and the 
President have the power to control the military. The nature of this 
power, and the role of the Article III courts in defining or limiting 
it, have been addressed repeatedly by the Supreme Court. As a general 
proposition, the Court has explained, ``it would be difficult to think 
of a clearer example of the type of governmental action that was 
intended to be left to the political branches directly responsible--as 
the judicial branch is not--to the electoral process.'' Gilligan v. 
Morgan, 413 U.S. 1,4(1973).
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Navy?
    Answer. In my opinion, the client of the General Counsel of the 
Department of the Navy is the Department of the Navy. The Department 
speaks through its senior officials, chiefly the Secretary of the Navy. 
While I do not anticipate any conflict between the Department's 
interests and those of a Department of the Navy official, my duty in 
such a case would be to the Department.
                              legal ethics
    Question. What is your understanding of the action a Department of 
Defense attorney should take if the attorney becomes aware of improper 
activities by a Department of Defense official who has sought the 
attorney's legal advice and the official is unwilling to follow the 
attorney's advice?
    Answer. If an attorney is aware that a Department official intends 
to engage in improper activities despite the attorney's legal advice, 
the attorney should immediately report the situation to his or her 
professional supervisor and, if necessary, further up the professional 
chain of command until the matter is resolved.
    Question. In your view, do the laws, regulations and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of Defense provide adequate guidance?
    Answer. Yes. Every lawyer must be an active member in good standing 
of the Bar of a State or the District of Columbia, and is subject to 
the professional responsibility rules of that jurisdiction. Lawyers 
conducting litigation are subject to the rules of the forum in which 
they appear. In addition, lawyers within the Department are also 
subject to the same rules of ethical conduct as all executive branch 
employees. Finally, Navy and Marine Corps judge advocates are bound by 
professional responsibility rules promulgated by the Judge Advocate 
General. I believe that adequate guidance is provided under this 
regime. Department attorneys, civilian and military, have a long 
history of ethical practice, and I aim to see that it continues. If 
confirmed, I will be alert to the need for adequate guidance and, if I 
detect any deficiencies, I will act to address them.
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Department of the Navy in ensuring the integrity of the officer 
promotion process?
    Answer. My understanding is that the Judge Advocate General has 
primary responsibility for providing legal advice in the conduct of the 
officer promotion selection process. If confirmed, my role will be as 
directed by the Secretary. If so directed, I would review the process 
and governing procedures, and provide the Secretary with my candid and 
objective advice concerning compliance with the law, fairness and 
impartiality.
    Question. What is the role of the General Counsel of the Department 
of the Navy in reviewing and providing potentially adverse information 
pertaining to a nomination to the Senate Armed Services Committee?
    Answer. If confirmed, my role will be as directed by the Secretary. 
I expect that I will be called upon from time to time to review a 
nomination or a candidate's record, as in the case of past misconduct 
or alleged misconduct on the part of the candidate. In those instances, 
I would expect to consider the completeness and regularity of the 
package as a matter of both substance and form, to evaluate the 
significance of the adverse or alleged adverse information (if any), 
and to provide the Secretary with my candid and objective advice 
concerning the same.
             litigation involving the department of defense
    Question. In your opinion, what is the relationship between the 
Department of Defense and the Department of Justice with respect to 
litigation involving the Department of Defense?
    Answer. Navy and Marine Corps attorneys work directly with the 
Department of Justice counsel in cases in which the Department is a 
party or has an interest. The Department of Justice has the primary 
responsibility to represent the United States in all litigation 
matters. (28 U.S.C. Sec. 516.) Nonetheless, attorneys representing DOD 
review pleadings before they are filed with the courts, conduct and 
direct discovery, participate in making major litigation decisions, and 
in some cases become part of the trial team. It has been my experience 
that attorneys from the Department of Defense and Justice work closely 
to represent the agency and the United States in all substantive 
matters.
    Question. Is the present arrangement satisfactory, or does the 
Department need more independence to conduct its own litigation?
    Answer. To my knowledge, the present arrangement seems to be 
working well, and I see no need for more independence.
                       court of appeals decision
    Question. On January 4, 2000, the United States Court of Appeals 
for the District of Columbia Circuit decided the case of National 
Center for Manufacturing Sciences v. Department of Defense, 199 F.3d 
507 (D.C. Cir. 2000). The court concluded that ``Because of the 
existence of 10 U.S.C. Section 114, it is clear than any monies 
appropriated for NDMS by Congress for research must be authorized 
before they can be appropriated and distributed''; and ``Because 10 
U.S.C. Section 114(a)(2) requires authorization of these funds before 
they become available, appropriation alone is insufficient.''
    What is your view of the court's decision in this case and its 
implications regarding the obligation of funds that are appropriated, 
but not authorized?
    Answer. The case in question affirmed the district court's decision 
to grant the government's motion to dismiss for failure to state a 
claim. The basis for the decision was the fact that in the Department's 
Fiscal Year 1995 Authorization Act, Congress effectively rescinded the 
unreleased portion of Fiscal Year 1994 funding earmark for the National 
Center for Manufacturing Sciences (NCMS). Accordingly, the court 
concluded that NCMS had no legal entitlement to the funds claimed.
    Parties to this litigation, and the court, viewed the funds in 
issue to have been authorized by Congress. Thus, the question regarding 
the obligation of funds not authorized was not squarely presented for 
decision in this case, but was addressed only as a collateral matter. 
Situations where funds have been appropriated but not authorized are 
often complex and may involve unique statutory language. If confirmed, 
I will continue the practice of working closely with our oversight 
committees whenever these issues are presented.
               role in military personnel policy matters
    Question. What role, if any, should the General Counsel play in 
military personnel policy and individual cases, including cases before 
the service boards for the correction of military records?
    Answer. I am advised that attorneys within the Office of the 
General Counsel do become involved with policy issues pertaining to 
military personnel, both with regard to individual cases and to the 
application of the Department's personnel policies. I believe that the 
General Counsel should, in appropriate cases, make his or her views 
about individual cases and the development and application of personnel 
policies known to the Department's senior leadership, so that 
individual cases are resolved fairly and that overall policies are 
developed uniformly, fairly and in conformance with law.
                             ship scrapping
    Question. The Navy has a growing number of inactive ships that have 
been designated for scrapping. In September 1999, the Navy began 
conducting ship disposal through the Ship Disposal Project. Within that 
project there are four ship disposal contractors--two that compete for 
ships on the west coast and two that compete for ships on the east 
coast.
    Given the potential for cost efficiencies, would it be appropriate 
to allow all four contractors to compete for disposal of ships on both 
coasts?
    Answer. I have not had the opportunity to be fully briefed on this 
subject. If confirmed, I intend to work with this committee and my 
staff to develop an informed opinion on this matter.
    Question. What is the basis for your position?
    Answer. I have not had the opportunity to be fully briefed on this 
subject. If confirmed, I intend to work with this committee and my 
staff to develop an informed opinion on this matter.
    Question. Asbestos remediation is one of the cost drivers for the 
Navy's ship scrapping program. Other entities facing substantial costs 
for the abatement and removal of asbestos have been able to recover a 
portion of these costs from asbestos manufacturers, including companies 
that are currently in bankruptcy. The Navy, unlike other affected 
parties, has not generally pursued this course.
    What is your view of the availability of this remedy and the 
desirability of the Navy pursuing it?
    Answer. I have not had the opportunity to be fully briefed on this 
subject. If confirmed, I intend to work with this committee and my 
staff to develop an informed opinion on this matter.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Strom Thurmond
                      the military justice system
    1. Senator Thurmond. Mr. Mora, we all have read stories in the 
press criticizing the military justice system and the Uniform Code of 
Military Justice. Often these articles are sensationalized and written 
by people who have no understanding of the system. 
    How would you characterize the military justice system? 
    Mr. Mora. The military justice system is modeled after the Federal 
judicial system and is specifically tailored for the Armed Forces. It 
balances Constitutional guarantees of fairness with the need to 
maintain good order and discipline. Congress and the courts have long 
recognized that well-disciplined, combat-ready Armed Forces mandate a 
separate system of justice. To this end, the Uniform Code of Military 
Justice (UCMJ) was enacted by Congress to strike a balance between the 
military's mission, the desire to preserve the constitutional rights of 
a service member, and the need to maintain civilian oversight over the 
military justice process. Military defendants are afforded a number of 
procedural benefits not typically available to civilian criminal 
defendants. For example, military defendants are assigned qualified 
military defense counsel at no cost, regardless of financial ability, 
and may request assignment of a specific military defense counsel if 
reasonably available. Additionally, discovery by the defense is far 
more extensive for military defendants, and investigative and expert 
assistance is provided at government expense, again, without regard to 
a defendant's ability to pay for such resources. Military defendants 
who receive a punitive discharge or confinement for at least a year 
have an automatic, cost-free right of appeal to a court of criminal 
appeals, even if they pled guilty.
    A trial by court-martial is substantially similar to a civilian 
criminal trial. Courts-martial are presided over by military judges and 
are subject to uniform rules of evidence patterned after the Federal 
Rules of Evidence. The court-martial is presented evidence and must be 
persuaded beyond a reasonable doubt to return a finding of guilty. The 
Manual for Courts-Martial, which contains the specific substantive and 
procedural rules that form the basis of the military justice system, is 
reviewed annually to ensure that it continues to fulfill its 
fundamental purpose to ensure justice in a unique military environment.

    2. Senator Thurmond. Mr. Mora, the Navy empowers the captain of a 
naval vessel with a great deal of authority in regard to maintaining 
discipline aboard his ship. Many of these are based on old and 
traditional roles of the ship captain. 
    Considering that we now have almost instant communication and 
shorter deployments, is it time to review the role of the captain to 
impose judicial actions aboard his ship? 
    Mr. Mora. Nonjudicial punishment is authorized by Article 15, UCMJ 
and is administered by a unit's commander. Nonjudicial punishment 
provides commanders with a prompt and efficient means of maintaining 
good order and discipline. It also encourages positive behavior changes 
in sailors/marines without the stigma of a court-martial conviction. 
Nonjudicial punishment (NJP) is appropriate when simple administrative 
corrective measures such as extra military instruction are inadequate 
due to the nature of the minor offense or the record of the sailor/
marine, unless it is clear that only a trial by court-martial will 
satisfy the needs of justice and discipline. The imposition of 
nonjudicial punishment (NJP) pursuant to Article 15, UCMJ aboard naval 
vessels is a time-honored, well-conceived process for maintaining the 
Navy's fighting strength and preserving the national security of the 
United States. Afloat commanders must be able to resolve disciplinary 
problems while underway or in hostile waters. Extending service members 
assigned to afloat units the right to refuse NJP would place commanding 
officers in the unenviable position of transferring the accused and 
prospective witnesses ashore for trial by courts-martial; embarking a 
trial team composed of attorneys, a military judge, and court reporter; 
or delaying disciplinary action pending completion of the afloat 
mission. Unfortunately, improved technology does not mitigate the 
difficulties inherent in these options or relieve a commanding officer 
of the responsibility to maintain good order and discipline while 
underway. If a commanding officer cannot resolve minor misconduct 
quickly through the imposition of NJP, a delay in taking disciplinary 
action could adversely impact combat readiness, mission effectiveness, 
and crew morale.
    Numerous safeguards ensure Article 15 is used by afloat commanding 
officers appropriately. Service members who receive NJP may appeal to 
the next superior commander. They may also petition to have the record 
and consequences of the NJP removed by the Board for Correction of 
Naval Records. Finally, oversight by the Federal judiciary of the Board 
for Correction of Naval Records ensures service members receive fair 
adjudication. The safeguards of Article 15 ensure basic procedural 
fairness and protect the rights of accused service members.

                         the inspector general
    3. Senator Thurmond. Mr. Mora, if confirmed, what will be your 
relationship with the Inspector General? What oversight will you have 
in regard to inspector general investigations? 
    Mr. Mora. If confirmed, I anticipate that I will have an excellent 
working relationship with VADM Haskins and his staff. Historically, the 
Office of the General Counsel has worked closely with the Office of the 
Naval Inspector General, and I anticipate that practice will continue 
unchanged under Secretary of the Navy England.
    By law, the Naval Inspector General reports to, and receives 
direction from, the Secretary and the Chief of Naval Operations (CNO). 
There is no statutory or regulatory provision for any specific form of 
interaction between the General Counsel of the Navy and the Office of 
the Naval Inspector General. By regulation, the Navy has given the 
Naval Inspector General that degree of independence necessary to ensure 
the Navy, through the Office of the Naval Inspector General, is fully 
capable of critical internal introspection, self-evaluation and 
improvement. A formal provision for General Counsel oversight of 
inspector general investigations or inspections could be construed as 
an attempt to dilute the Naval Inspector General's independence and 
access to the Secretary or the CNO.
    At the same time, the Navy has taken steps to ensure the Naval 
Inspector General has access to the best legal advice the Navy can 
provide. The Naval Inspector General legal staff includes two senior 
civilian attorneys (GS-15) and two officers of the Judge Advocate 
General (JAG) Corps (0-6 and 0-4). Each of the civilian attorneys has 
been with the office for over 10 years. The civilian attorneys report 
directly to a senior lawyer on my immediate staff, and have unfettered 
direct access to me when they deem necessary. They participate in 
monthly OGC staff meetings and brief my staff or me on matters of legal 
interest. The four attorneys in the office are authorized to, and 
frequently do, obtain the legal opinions of senior JAG and OGC 
attorneys who may be regarded as subject matter experts in various 
legal fields. On occasion, they will recommend the Naval Inspector 
General obtain a formal legal opinion from the General Counsel in 
support of an investigation or other inquiry.
    At least one of the attorneys in the office reviews every report of 
investigation before the Naval Inspector General signs it. At a 
minimum, the attorney informs the Naval Inspector General whether the 
report is legally sufficient. Often, the attorney provides additional 
advice. The attorneys discuss most cases with the investigators and 
provide advice as the investigation progresses. Before the Naval 
Inspector General issues his final reports of investigation, attorneys 
in his office may discuss the legal issues in them with the General 
Counsel or the Judge Advocate General as they deem appropriate. 
However, in order to protect the independence of the Naval Inspector 
General, they are not required to do so in any specific case.
    I anticipate that my personal involvement in Naval Inspector 
General investigations will be similar to that of my predecessors. The 
Naval Inspector General, the General Counsel, and the Judge Advocate 
General attend weekly staff meetings with the Secretary. The Naval 
Inspector General meets with the Under Secretary of the Navy on a 
regular basis to discuss pending investigations; the General Counsel 
attends those meetings at the request of the Under Secretary or the 
Naval Inspector General. When the nature of an investigation warrants, 
the Naval Inspector General meets with the Under Secretary or the 
Secretary to brief the status of the investigation on a more frequent 
basis; the General Counsel and/or the Judge Advocate General frequently 
participate in those meetings.

                               work force
    4. Senator Thurmond. Mr. Mora, a significant issue throughout the 
Department of Defense is its aging workforce and the looming loss of 
expertise because of retirements. 
    What are your concerns regarding this issue as it related to the 
Office of the General Counsel?
    Mr. Mora. The Navy's Office of the General Counsel is facing 
challenges that are very similar to those facing the Department of the 
Navy as a whole. Approximately 35 percent of OGC's attorneys, both 
general and patent, are age 50 or older. The number of attorneys under 
age 40 is about 25 percent. Among our career senior executives, over 
half will become retirement eligible within the next 5 years, and 72 
percent of our 46 patent attorneys are now over age 50. These 
statistics are a clear signal that OGC is facing important force 
structure challenges similar to those faced by the Navy Department and 
the Federal Government as a whole.
    What we do today to manage our workforce will determine the ability 
of OGC to provide first-rate legal services to the Department of the 
Navy in the 21st century. As the head of OGC, recruiting and retaining 
the best legal talent are top management priorities, but it is even 
more important that we shape our workforce to ensure both continuity of 
specialized expertise and the development of the next generation of 
senior leaders. I intend to give these matters my personal attention 
and to provide the corporate level guidance and direction necessary to 
achieve these goals.
                                 ______
                                 
               Question Submitted by Senator Wayne Allard
               clean-up at the colorado state fairgrounds
    5. Senator Allard. Mr. Mora, I would like to call your attention to 
a matter between the Navy and the Colorado State Fair Authority. The 
Navy leased land at the Colorado State fairgrounds in Pueblo and in 
1946 they had two Reserve Center buildings constructed. Now there is 
some dispute as to the environmental clean-up of the site, specifically 
regarding the asbestos contained in the building and who will be paying 
for clean up. I would certainly appreciate it if you could look into 
the matter, and ensure the Navy is giving all due accommodations to the 
matter. The Colorado State Fair is a great institution, but not a rich 
one, and I would hate for them to be put at a disadvantage.
    Mr. Mora. I have inquired into the matter regarding the lease 
between the Colorado State Fair Authority and the Navy for Reserve 
Center property at the Colorado State fairgrounds in Pueblo. The Navy 
is very appreciative of the support and cooperation it received from 
the Colorado State Fair Authority during the approximate 50-year lease 
period. It is the Navy's goal to be both a good neighbor in the 
communities we are located as well as a good steward of the 
environment. In this regard, I am told that in 1998, prior to 
expiration of the lease at issue, the Navy spent approximately $78,000 
to remove underground storage tanks, clean up a small arms range, and 
remove friable asbestos on the leased property. As a result of these 
actions, the Navy believes the Colorado State Fair Authority received 
commercially viable and marketable buildings when the lease ended. 
Apparently, the present issue stems from the request of the Colorado 
State Fair Authority that the Navy entirely demolish the structures on 
the formerly leased property so that a parking lot can be built. It is 
this requested demolition of the buildings by the Colorado State Fair 
Authority that has raised a question as to whether further remediation 
is necessary with regard to asbestos containing roofing material that 
is otherwise in good condition. The roofing material in its present 
state poses no environmental hazard or risk. Since there is no 
contractual or legal obligation to demolish the buildings, there is no 
further remediation the Navy need undertake in this case. It appears 
the Navy has fully complied with the terms and conditions of the lease 
and its obligations under applicable law and there is nothing further 
the Navy can do to assist the Colorado State Fair Authority in their 
desire to demolish the buildings.
                                 ______
                                 
    [The nomination reference of Alberto J. Mora follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     June 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Alberto Jose Mora, of Virginia, to be General Counsel of the 
Department of the Navy, vice Stephen W. Preston.
                                 ______
                                 
    [The biographical sketch of Alberto J. Mora, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of Alberto J. Mora

    Alberto J. Mora is currently Of Counsel at the Greenberg 
Traurig law firm where he specializes in international law. 
Concurrently, he is the Governor of the Broadcasting Board of 
Governors and has been in that capacity since 1995.
    Mr. Mora was a Partner at the firm of Holland & Knight from 
1993 to 1997. Before that he was the General Counsel for the 
U.S. Information Agency from 1989 to 1993. From 1984 to 1989 he 
was a Partner at the law firm of Hornsby & Whisenand. Before 
that he was an Associate at the law firm of Frates, Bienstock, 
and Sheehe from 1981 to 1984. From 1975 to 1978 he was a 
Foreign Service Officer in the U.S. Department of State serving 
in Lisbon, Portugal.
    Mr. Mora graduated from Swarthmore College with a B.A. 
degree in 1974. In 1981 he received his J.D. from the 
University of Miami School of Law.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Alberto J. 
Mora in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Alberto Jose Mora. I was also called ``Albert'' during my school 
years.

    2. Position to which nominated:
    General Counsel, Department of the Navy.

    3. Date of nomination:
    June 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 11, 1952, in Boston, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    I am married to Susan J. Talalay (which is both her married and 
maiden name).

    7. Names and ages of children:
    Alexander L. T. Mora, age 5.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    (a) St. Joseph High School Jackson, MS, 9/66 to 6/70. I received my 
high school diploma in June 1970.
    (b) Swarthmore College Swarthmore, PA, 9/70 to 6/74. I received my 
B.A. degree in June 1974.
    (c) The University of Miami School of Law Coral Gables, FL, 9/78 to 
6/81. I received my J.D. in June 1981.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    (a) Attorney (Of Counsel), Greenberg Traurig, Of Counsel, 800 
Connecticut Ave., NW., Suite 500, Washington, DC 20006, 5/97 to 
present.
    (b) Attorney (Partner), Holland & Knight, 2100 Pennsylvania Ave, 
NW., Suite 300, Washington, DC 20006, 4/93 to 4/97.
    (c) Attorney (General Counsel), United States Information Agency, 
301 4th Street, SW., Washington, DC 20547, 8/89 to 1/93.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    (a) Governor, U.S. Broadcasting Board of Governors, 330 
Independence Avenue, SW., Cohen Building, Room 3360, Washington, DC 
20547, 8/95 to present.

    (Three times nominated by the President and confirmed by the 
Senate.)
    (b) Foreign Service Officer (Economist), U.S. Department of State, 
Agriculture Directorate, International Organization Bureau, 2201 C 
Street, NW., Washington, DC 20520, 8/77 to 8/78.
    (c) Foreign Service Officer (Political Officer), U.S. Department of 
State, U.S. Embassy, Lisbon, Portugal, 4/75 to 7/77.
    (d) Foreign Service Officer Trainee, U.S. Department of State, 
Foreign Service Institute, Rosslyn, VA, 1/75 to 3/75.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    (a) Greenberg Traurig, LLP Of Counsel.
    (b) U.S. Broadcasting Board of Governors, Governor.
    (c) Radio Free Europe/Radio Liberty, Inc., Director.
    (d) Radio Free Asia, Inc., Director.
    (e) Farragaut Media Group, Inc., Director.
    (f) As an attorney, I serve as legal consultant to numerous 
clients.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    (a) The Bar of the District of Columbia.
    (b) The Bar of the State of Florida.
    (c) The Bar for the U.S. District Court for the Southern District 
of Florida.
    (d) The Bar for the Federal District Court of Federal Claims.
    (e) The Council on Foreign Relations.
    (f) The USIA Alumni Association.
    (g) The Appalachian Society.
    (h) The Air Force Association.
    (i) The Bush/Quayle Association.
    (j) U.S.--Croatia Friendship Association.
    (k) Phi Beta Delta, Honorary Society for International Scholars.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Vice-Chair, Republican National Committee, Catholic Task Force 
(1997-present).
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Bob Dole for President, Foreign Policy Advisory Group (1996); The 
Bush/Quayle Association (1993-present); Republicans Abroad Ambassadors 
Forum, General Counsel (1995-97).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Dole for President, 1996--$1,000.
    Ileana Ros-Lehtinen for Congress, 1996--$100.
    Bill McCollum for Congress, 1997--$100.
    Tom Davis for Congress, 1997--$250.
    Ileana Ros-Lehtinen for Congress, 1997--$100.
    George W. Bush Presidential Exploratory Committee, 1999--$1,000.
    Ileana Ros-Lehtinen for Congress, 1999--$100.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    USIA's Distinguished Honor Award, 1993.
    Election to Phi Beta Delta, the Honorary Society for International 
Scholars, 1992.
    Election to the Bar and Gavel Honorary Society, University of Miami 
School of Law, 1981.
    Selection as Editor-in-Chief, The Lawyer of the Americas, the 
University of Miami Journal of International Law, 1981 (a scholarship 
was also provided along with this selection).
    Awarded an Organization of American States Fellowship for the OAS's 
Seventh Course on International Law, Rio do Janeiro, Brazil, 1980.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Statement of Alberto J. Mora on the Cuban Liberty and Democratic 
(Libertad) Act of 1996, before the Senate Foreign Relations 
Committee,'' 104th Cong., 2nd Sess. (July 30, 1996).
    The Revpower Dispute: China's Breach of the New York Convention?, 
Dispute Resolution in the PRC (Asia Law & Practice Ltd, 1995).
    Cuba Transition Resource Guide, International Republican Institute 
Cuba Transition Committee (Dec. 1995) (collaborative report).
    The Case for Strengthening the New York Convention, International 
Commercial Litigation (Oct. 1995).
    Saving Fidel, Comint (Mar. 1994).
    International Exchange Visitor Program Regulatory Reform, 
International Educator (Spring 1993).
    Arbitraje Comercial en America Latina, collaborative paper 
published by the OAS in the Proceedings of the VII Course on 
International Law (Rio do Janeiro, Brazil, 1981).
    Judicial Review of Shipowners and Stevedore Liability Under the 
Longshoremen's and Harbor Workers' Compensation, Act, 12 Law Amer. 487 
(1980).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    The nominee responded and the information is contained in the 
committee's executive files.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Alberto J. Mora.
    This 18th day of June, 2001.

    [The nomination of Alberto J. Mora was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 19, 2001.]
                                ------                                

    [Prepared questions submitted to Diane K. Morales by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                     June 15, 2001.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are my answers to the advanced 
questions that the Senate Armed Services Committee asked me to 
complete.
            Sincerely,
                                                  Diane K. Morales.
cc: Hon. John Warner,
     Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. If confirmed, I will fully support the intent of the 
reforms and advocate policies that will facilitate accomplishment of 
joint operations, streamline acquisition management and oversight, and 
enhance the department's ability to respond to our 21st century 
national security.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. The enactment of Goldwater-Nichols significantly improved 
the organization of the Department of Defense, focused our joint 
warfighting capabilities, and enhanced the military advice received by 
the Secretary. However, given the passage of time, I support Secretary 
Aldridge's view that it is worthwhile to review the department's 
implementation and make appropriate adjustments if needed. In 
particular, I will emphasize a closer partnership between the 
acquisition, operations, and support communities and better integration 
of logistics support throughout the Department.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The goals of Congress in enacting these defense reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Question. Do you agree with these goals?
    Answer. Yes, I support full implementation of the Goldwater-Nichols 
reforms and agree with its goals.
                                 duties
    Question. Section 133b of Title 10, United States Code, describes 
the duties of the Deputy Under Secretary of Defense for Logistics and 
Materiel Readiness.
    Assuming you are confirmed, do you expect that Secretary Rumsfeld 
will prescribe additional duties for you?
    Answer. I do not know of additional duties Secretary Rumsfeld might 
assign to me.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties and those outlined in the 
law and applicable DOD directives?
    Answer. As President of DMS, Inc. since 1993, I have headed a 
management services firm focused primarily on defense and commercial 
logistics. Those management services include policy and program 
analysis, net assessments, strategic planning, and government 
relations/legislative analysis. Recent activities include Department of 
Defense strategic planning (Logistics 2010), information support 
systems, and best commercial logistics practices.
    From 1990 to 1993, I served as the Deputy Assistant Secretary of 
Defense for Logistics. I managed DOD logistics operations, including 
the functions of supply/materiel management, maintenance, 
transportation, energy, international logistics, and all support 
information systems, commissaries and exchanges. My key accomplishments 
involved the following: (1) resized DOD inventories, reduced operating 
costs, and introduced commercial business practices; (2) standardized, 
streamlined, and integrated logistics policies and procedures for 
standard systems development; (3) consolidated DOD organizations and 
missions; and (4) began changing the business culture with total 
quality management.
    In the area of supply/materiel management, we rewrote 80 separate 
policy documents regarding the supply system life cycle into a single, 
integrated policy and developed the Inventory Reduction Plan as the 
vehicle to implement the new policy and save $18 billion. In 
maintenance, we developed a business plan to reduce business operations 
costs from $13 billion annually in 1990 to $6.4 billion in 1997 by 
streamlining processes, personnel, and infrastructure. In 
transportation, we consolidated wartime and peacetime, common-user and 
Service-unique transportation functions under a single command. I also 
revised requirements for lift assets, the appropriate mix of strategic 
lift, and the augmentation of military assets with commercial assets 
under the DOD Mobility Requirements Study. In international logistics, 
I worked with NATO in developing cooperative logistics programs to 
reduce U.S. costs and to increase ``burden-sharing'' among other 
members. I also prepared a Host Nation Support Model Agreement to 
accelerate logistics support agreements in countries where potential 
conflicts involving the U.S. might develop.
    I believe my experience in both the public and private sectors 
qualifies me to perform the duties of this position.
    Question. Do you believe there are any additional steps that you 
need to take to enhance your expertise to perform these duties?
    Answer. Mr. Aldridge has realigned responsibilities within his 
office to create a Deputy Under Secretary of Defense (Installations and 
Environment) position that would report to the position for which I 
have been nominated. In my previous tour at the Pentagon, I had limited 
involvement in installations and environmental issues. If confirmed, I 
intend to work closely with Mr. DuBois to fully familiarize myself with 
these issues.
                             relationships
    Question. If confirmed, what would your relationship as Deputy 
Under Secretary of Defense for Logistics and Materiel Readiness be with 
each of the following:
    The Under Secretary of Defense for Acquisition, Technology, and 
Logistics?
    Answer. If confirmed, I would, as established in DOD Directive 
5134.12, serve as the principal staff assistant and advisor to the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) on logistics and materiel readiness in the Department of 
Defense.
    Question. The Deputy Under Secretary of Defense (Installation and 
Environment)?
    Answer. Under the May 29, 2001, realignment within Mr. Aldridge's 
office, this position would report to the position for which I am 
nominated. If confirmed, I would work with Mr. Aldridge to 
appropriately revise DOD Directive 5134.12 to formalize this reporting 
relationship.
    Question. The Director of the Defense Logistics Agency?
    Answer. If confirmed, I would, as established in DOD Directive 
5134.12, exercise authority, direction, and control over the Director, 
Defense Logistics Agency.
    Question. Elements of the Military Departments including the Army 
Materiel Command, the Naval Aviation Systems Command, and the Air Force 
Materiel Command?
    Answer. If confirmed, my relationship with the Military 
Departments, including those elements specified, would be governed by 
the duties assigned to the position to which I have been nominated by 
DOD Directive 5134.12. I would, if confirmed: (1) prescribe policies 
and procedures for the conduct of logistics, maintenance, materiel 
readiness, and sustainment support in the Department of Defense, to 
include supply and transportation; (2) advise and assist the USD(AT&L) 
in providing guidance to the Secretaries of the Military Departments 
with respect to logistics, maintenance, materiel readiness, and 
sustainment support in the Department of Defense; (3) monitor and 
review all logistics, maintenance, materiel readiness, and sustainment 
support programs within the Department of Defense; (4) participate in 
the DOD Planning, Programming, and Budgeting System with respect to 
assigned areas of responsibilities; and perform such other duties as 
the USD(AT&L) may prescribe.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Deputy Under Secretary of Defense for Logistics and Materiel 
Readiness? If confirmed, what plans do you have for addressing these 
challenges?
    Answer. As I understand it, the major challenge is to continue to 
increase the performance of the logistics system while reducing costs 
and improving the readiness of our forces. If confirmed, I will conduct 
a comprehensive analysis of the logistics system, from the ``foxhole to 
the factory,'' to identify those capabilities and policies that are 
required to deliver and sustain the necessary combat capability 
required by the new military strategy. The capability analysis would 
include our mobility assets, depot maintenance assets, and the use of 
modern commercial technology. My policy review would include supply 
chain integration operations at the national level and include end to 
end distribution management responsibility for both the sustainment and 
deployment of our forces. The focus of the review would be to identify 
those investments and policy changes required to counter any threat to 
our Nation during the 21st century.
       responsibility for installations and environmental issues
    Question. On May 29, 2001, the Under Secretary of Defense for 
Acquisition, Technology and Logistics realigned responsibilities in his 
office and created a Deputy Under Secretary of Defense (Installations 
and Environment) position that would report to the Deputy Under 
Secretary of Defense (Logistics and Materiel Readiness) position for 
which you have been nominated.
    If confirmed, will you be responsible for oversight of 
installations and environmental issues?
    Answer. Yes, if confirmed, oversight of installations and 
environmental issues would be part of my portfolio. The Under Secretary 
of Defense for Acquisition, Technology and Logistics, Mr. Aldridge, 
envisions his organization operating with two direct reporting Deputy 
Under Secretaries, one for Acquisition and Technology issues and one 
for Logistics, Installations, and Material Readiness issues. Mr. Wynne 
has been nominated for the Acquisition and Technology portfolio and I 
have been nominated for the Installations and Logistics portfolio.
    Question. What role do you expect to play in issues such as family 
housing privatization, military construction, base closure policy, 
environmental policy, and policies for resolving conflicts over the use 
of land, water and airspace between military bases and the surrounding 
civilian populations?
    Answer. I envision my role in overseeing installations and 
environmental issues as one of providing broad general guidelines to 
the Deputy Under Secretary of Defense for Installations and 
Environment, Mr. DuBois, and reviewing policy and work products from 
Installations and Environment which require higher level review. I 
anticipate that over the course of time that would involve the broad 
spectrum of installations and environmental issues, as all of the 
functions you listed have important national implications.
                   achieving best business practices
    Question. What is your assessment of the progress the Department of 
Defense has made since you last served in the Department in 1993 in 
improving its business practices in the areas for which the Deputy 
Under Secretary of Defense (Logistics and Materiel Readiness) is 
responsible, such as supply management, logistics systems, and 
maintenance procedures, and in the application of information 
technology to these functions?
    Answer. My assessment is that the Department of Defense has made 
considerable progress since 1993 in improving its business practices. 
For example, I am impressed by the degree to which ``best practices'' 
from the private sector have been applied to commercial items such a 
medical supplies, clothing and subsistence, and common hardware items. 
The adoption of commercial logistics vehicles such as prime vendor, 
combined with the application of modern information technology in the 
form of electronic ordering, has resulted in better customer support 
(faster with a greater variety of state-of-the-art commercial items) 
without reliance on unnecessary DOD infrastructure (warehouses, etc.).
    Question. Where do you believe additional improvements are most 
needed and what steps would you plan to take to bring about change in 
those areas?
    Answer. My view is that the Department is at a crucial point in 
improving its business practices. If confirmed, I would undertake, in 
consultation with the Military Departments and the Director of the 
Defense Logistics Agency, an intensive assessment of the ``lessons 
learned'' from the progress of the past decade in improving the 
Department's business practices, and developing a plan to build on that 
progress and expand the successes in commodities such as subsistence, 
medical items, and common hardware items to more complex areas such as 
fighter aircraft parts.
                    defense acquisition regulations
    Question. Are you familiar with the recent revisions of DOD 
Directive 5000.1 and DOD Instruction 5000.2 that set forth DOD policy 
on acquisition and support of major weapons systems, and if so, what 
are your views on these policies as they relate to the areas for which 
the Deputy Under Secretary of Defense for Logistics and Materiel 
Readiness is responsible including logistics, weapons system support, 
and supply chains?
    Answer. Yes, I am familiar with the recent revisions of DOD 
Directive 5000.1 and DOD Instruction 5000.2.
    Question. Do you support these revisions?
    Answer. I strongly support the recent revisions, particularly the 
increased emphasis on development of effective sustainment strategies 
for life cycle support. Section 2.8 of DOD 5000.2 Regulation contains 
guidance on planning for full life-cycle product support management 
that is built upon appropriate best practices and is focused on 
outcomes, such as mission availability and readiness.
    Question. Are there any additional changes that you recommend in 
the current policies?
    Answer. At this time, I would not offer any recommendations for 
changes to current policy. If confirmed, I will evaluate the 
effectiveness of current policy through program oversight on the 
Defense Acquisition Board and offer potential adjustments to Under 
Secretary Aldridge, if appropriate.
                             pricing issues
    Question. Over the last several years, the Department of Defense 
Inspector General has issued a number of reports that have been 
critical of the pricing of spare and repair parts purchased by the 
Defense Logistics Agency.
    Are you aware of these reports and the concerns that they have 
raised about the pricing of spare and repair parts?
    Answer. I am aware of the concerns raised by the Inspector General 
about the pricing of spare and repair parts under vehicles such as the 
Defense Logistics Agency's ``corporate contracting'' initiative. My 
understanding is that challenges were identified in terms of item 
pricing and the value of inventory management services.
    Question. What are your views as to how these concerns should be 
addressed?
    Answer. My view is that the Department of Defense should use the 
``lessons learned'' from these test programs to improve future efforts 
before expanding commercial logistics practices into more challenging 
areas such as aircraft.
                    logistics and materiel readiness
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics will be responsible for developing plans for 
the complete life cycle of military weapon systems from initial 
procurement to the maintenance of those systems decades later. There 
has been some concern expressed that this leads to decisions where 
long-term maintenance quality and efficiency are sacrificed to achieve 
reduced initial procurement costs. As a result of this concern, the 
position of Deputy Under Secretary of Defense for Logistics and 
Materiel Readiness was created to ensure that life cycle maintenance 
was given proper consideration during the acquisition process.
    If confirmed what actions will you take to ensure that logistics 
and materiel readiness are adequately considered and protected when 
acquisition decisions are made on all of the Departments weapon 
systems?
    Answer. The issue of trading off logistics life cycle 
considerations during weapon system design and development is still a 
challenge, although initiatives in recent years have enhanced attention 
to long-term logistics considerations. Much of this improvement is 
associated with the strengthened integration of acquisition and 
logistics functions within the Office of the Secretary of Defense, and 
particularly in the Military Departments. Today, emphasis on life cycle 
cost reduction is greater than ever. Logistics is now viewed as a 
performance element during the systems engineering process. Finally, 
the integrated process team (IPT) structure of managing the diverse 
elements of weapon system acquisition and sustainment has provided a 
very effective environment for improved attention to life cycle 
logistics requirements and issues.
    It is in this last area of IPT involvement where, if confirmed, I 
will most vigorously take action to insure that logistics, sustainment, 
and readiness priorities are maintained. The most recent DOD 5000 
series acquisition policy, just signed by Under Secretary Aldridge on 
June 10, 2001, for the first time makes the Deputy Under Secretary of 
Defense for Logistics and Materiel Readiness a mandatory member of the 
Defense Acquisition Board (DAB). The office of the DUSD(L&MR) is also 
represented by an executive on the Overarching IPT (OIPT), which 
prepares for the DAB decision. Recently, the Office of the Deputy Under 
Secretary of Defense for Logistics and Materiel Readiness has 
established an office that engages in all weapon system program IPT 
efforts to insure that life cycle logistics requirements are fully 
addressed.
               impact of logistics decisions on readiness
    Question. If confirmed, what steps do you plan to take to 
coordinate logistics decisions with the Under Secretary of Defense for 
Personnel and Readiness and the military services to make sure that the 
potential impact on readiness is taken into account when decisions on 
logistics policies are made?
    Answer. Readiness is the highest priority of the Department of 
Defense and is the product of a complex interaction of inputs, i.e., 
materiel readiness, personnel readiness and training readiness. 
Materiel Readiness must be viewed in the total context and is impacted 
by the availability of people to repair equipment, i.e., an element of 
Personnel Readiness. Training Readiness is impacted by the availability 
of equipment on which to train, i.e., an element of Materiel Readiness. 
Personnel Readiness, i.e., the availability of trained people, is the 
consequence of recruiting and retention.
    Because of these interactions, a high state of Materiel Readiness 
can only be realized by strong partnerships and interactions with 
``stakeholders'' in the Services, Joint Staff, and elsewhere in the 
Office of the Secretary of Defense. If confirmed, I will ensure there 
are strong partnerships with the Under Secretary of Defense for 
Personnel and Readiness and the Services so that logistics decisions 
intended to maximize Materiel Readiness are considered within the 
competing constraints of overall readiness.
                         acquisition workforce
    Question. During the post-Cold War drawdown there has been 
considerable pressure to reduce acquisition personnel. The Department's 
Acquisition Workforce 2005 Task Force has reported that DOD will be 
faced with a significant demographic challenge as 50 percent of the 
acquisition workforce will be eligible to retire in the next 5 years. 
In DOD maintenance depots, for example, the size of the workforce has 
declined by approximately 50 percent over the past decade, while the 
average age of the workforce that remains is now over 47 years.
    Are you concerned that these reductions have created an unbalanced 
workforce?
    Answer. Yes, I am very concerned about the effects of the 
reductions. During the decade of the 1990s the Acquisition, Technology 
and Logistics workforce underwent significant reductions conducted in 
accordance with Office of Personnel Management merit principles that 
adversely impacted those with less seniority, largely the younger 
workforce population. Additionally, there has been little recruitment 
or hiring effort over the past 10 years due to downsizing efforts. One 
consequence is that the workforce has become older and is no longer 
evenly distributed across grades and year groups. As the Department 
continues to emphasize contracting out and competitive sourcing, the 
skills, training and experience of the acquisition workforce will be 
critical in effectively managing acquisition, technology and logistics 
efforts.
    Question. What steps should the Department of Defense take to 
revitalize the civilian acquisition workforce?
    Answer. As I understand it, there are already plans in place within 
the Department to revitalize the Acquisition, Technology and Logistics 
workforce. These high priority initiatives were published in October 
2000 in the Acquisition Workforce 2005 Task Force Final Report. I look 
forward to studying this critical issue further if I am confirmed.
    Question. Are there any additional steps that you would recommend 
taking to enhance the workforce in DOD's maintenance, supply, and 
distribution depots?
    Answer. Prior to advocating any detailed proposals for individual 
logistics functional specialties, if confirmed, I would want to be 
thoroughly briefed on the specific issues and problems.
           logistics transformation and prime vendor support
    Question. Over the last 10 years, the Defense Logistics Agency has 
placed an increasing emphasis on approaches such as prime vendor 
agreements, virtual prime vendor agreements, and direct vendor delivery 
to streamline the Department's logistics systems for commercial items 
such as medical supplies, clothing and subsistence, and common hardware 
items.
    Do you support commercial practices such as these that rely 
increasingly on the private sector to meet the Department's logistics 
need?
    Answer. I strongly support the use of commercial practices in 
defense logistics, where it makes sense from a warfighter's perspective 
and I look forward in working this issue upon confirmation.
    Question. Do you support the expansion of such commercial logistics 
practices to the delivery of non-commercial items, such as aircraft 
spare parts?
    Answer. The challenge here is defense-unique items, such as fighter 
aircraft parts, which tend to be low volume, high cost items, often 
provided by sole-source manufacturers. DLA has recently tested 
commercial practices in support of weapons programs such as the Air 
Force C-130 as well as ``Corporate Contracting'' for classes of items 
with numerous industrial providers. The early results of these tests 
appear promising; however, some challenges were identified in terms of 
item pricing and the value of inventory management services. I believe 
that DOD should continue the adoption of innovative support methods, 
while using the ``lessons learned'' from the test programs to improve 
future efforts.
                          prime vendor support
    Question. There has been concern expressed regarding the proposals 
to adopt prime vendor support for weapon systems, particularly when 
that support would be provided by the original equipment manufacturer. 
There is concern that these relationships will lead to a non-
competitive environment where our national security requirements might 
not be met at the lowest cost.
    What actions must the Department of Defense take to ensure that its 
pursuit of prime vendor support arrangements does not lead to a non-
competitive environment?
    Answer. I fully agree with the committee's concerns over 
controlling cost in a non-competitive environment. Where contractor 
support is an option, prime vendor strategies must be examined in 
concert with other support options. Prime vendor support is but one 
type of weapon system support strategy being implemented today. Other 
strategies include third-party logistics concepts, partnerships, and 
contractor and organic support approaches with performance incentives. 
All of these support strategies include tenets of competition--
marketplace competition, public-private competition, or a business case 
analysis to determine the best value support provider.
    If confirmed, I will encourage the Department to place a greater 
emphasis on performance-based logistics (PBL) strategies. These can 
work as incentives to both public and private sector support providers. 
With private sector providers, these strategies can involve several 
contract options that are exercisable based on performance and cost. 
The contracts also include significant positive and negative incentives 
for cost and performance. These approaches stress the use of effective 
competition at the subcontract and supplier level (where most of the 
costs are) to maintain cost control. There are also examples of 
performance-based organic support providers and integrators (e.g., Army 
HEMTT, USAF B-1) that can provide effective leverage on performance 
improvement and cost reduction.
                          competitive sourcing
    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform certain activities including 
equipment maintenance and facility operations. Some have supported this 
effort while others have expressed concern that core activities are 
being jeopardized by reducing our reliance on military personnel and 
civilian employees of the Federal Government.
    What approach would you recommend to balance the need to maintain 
necessary capabilities in the government workforce, including the 
knowledge necessary to be a ``smart buyer,'' with the savings that may 
be available from outsourcing?
    Answer. If confirmed, I recommend furthering efforts within DOD to 
refine the Federal Activities Inventory Reform (FAIR) inventory. In 
order to comply with the FAIR Act of 1998, an annual inventory of all 
Defense employee positions is performed in which they are categorized 
into three broad categories. A position is recognized as inherently 
government when it is part of a core activity so intimately related to 
the public interest as to require performance by Federal Government 
employees. Such positions are never candidates for competitive 
sourcing. A position may also be coded as commercial in nature and 
suitable for review for competitive sourcing. Finally a position may be 
coded as commercial in nature, but exempt from competition for one of 
several reasons, for example fire fighters are precluded from 
competitive sourcing due to 10 U.S.C. 2465. An accurate FAIR inventory 
identifies those positions that could be performed by the private 
sector without eroding necessary government workforce capabilities.
    Question. Do you support the principle of public-private 
competition for the programs for which the Deputy Under Secretary of 
Defense for Logistics and Materiel Readiness is responsible, including 
depot-level maintenance of equipment?
    Answer. Yes, to the extent possible under law. I believe the forces 
of competition drive identification of inefficiencies regardless of 
which offer is determined to be most beneficial.
    Question. Do you believe that public-private competition results in 
significant savings to the Department of Defense regardless of which 
side wins the competition?
    Answer. Yes. Every independent study performed on this issue that I 
am aware of has concluded that significant savings are achieved.
    Question. OMB Circular A-76, which establishes the guidelines for 
outsourcing most government functions, is slated for scrutiny by a 
congressionally mandated panel of government and private experts in 
this area. The panel, chaired by the Comptroller General, is scheduled 
to report to Congress with specific policy and legislative reforms and 
recommendations for changing the way the government conducts out-
sourcing decisions and implements them.
    What is your view of the current A-76 process?
    Answer. The process is lengthy, complex and frustrating for all 
involved. That very frustration is, in part, an outgrowth of a process 
which has evolved over time to address legitimate concerns to establish 
a level playing field and to protect the interests of all: the 
government employee, the private sector competitors and the taxpayer.
    Question. Are there other effective alternatives to achieve the 
benefits of public-private competition?
    Answer. The greatest part of the cost savings could perhaps be 
achieved by simply privatizing activities that we determine are 
suitable for performance by the private sector. This would take 
advantage of the forces of competition that already exist in the 
commercial marketplace, and which we enjoy in contracts that already 
exist and which are periodically re-competed.
    Over the past several years the Department of Defense has increased 
its reliance on the private sector to perform certain activities 
including equipment maintenance and facility operations. Some have 
supported this effort, believing that outsourcing will yield 
significant savings that can be used to modernize the military. 
Unfortunately, previous administrations have over-estimated potential 
savings, which resulted in the need for supplemental appropriations to 
restore funds to accounts which were decremented. Furthermore, the 
Department has been faced with the possibility of restricting 
operations because of between labor and contractors.
    Question. If confirmed, how would you structure contracts on work 
that is outsourced to ensure that the promised savings are achieved, 
and ensure that labor disputes do not disrupt essential operations?
    Answer. The savings are established at the time the contract is 
awarded. The decision to contract for the work is only made when the 
contracted price reflects savings at least 10 percent greater than 
could have been achieved through government performance. Existing 
contract administration procedures enforce contract compliance on all 
contracts, to include those that are developed as part of an A-76 cost 
comparison process.
    With regard to potential labor disputes, the Defense Department 
follows all regulatory requirements with regard to labor rights. 
Private sector contractors have provided services to DOD for many 
years. We minimize potential disruption to essential operations by 
retaining a government workforce to perform all inherently governmental 
activities.
                            joint logistics
    Question. One of the most expensive and challenging military 
missions is the delivery of logistics support to the warfighter. While 
we have made great strides over the last 15 years, our current military 
structure continues the existence of a number of separate logistics 
systems for each of the military services.
    Do you believe that more opportunities exist to consolidate our 
logistics systems in a way that will continue to serve the needs of 
each military service, while increasing the efficiency and 
effectiveness of the system as a whole?
    Answer. First of all, I believe DOD's logistics systems primarily 
must be effective from a military requirement point of view, and they 
must be improved to meet the needs of an agile, highly lethal force. A 
significant part of that military effectiveness is the DOD's ability to 
rapidly source and distribute required material, without unnecessary 
hand-offs and delays. To reduce multiple hand-offs, some consolidation 
may be appropriate. If confirmed, I will assess end-to-end DOD 
logistics systems to enhance responsiveness to the military 
requirements inherent in the National Defense Strategy. If appropriate, 
I will identify areas for consolidation and share those areas with this 
committee.
    Question. What elements of the logistics system do you believe 
should be available for privatization, and what elements do you believe 
need to be retained within the Department of Defense?
    Answer. In terms of privatization, I believe the DOD should 
continue to draw upon the robust strength of our industrial sector 
where that sector can support our military mission and meet our 
military requirements. There is nothing inherently governmental about 
running a warehouse, a distribution center, or operating a business 
information system. On the other hand, DOD must retain sufficient 
technical and management expertise to fulfill our defense mission and 
to appropriately oversee private sector providers. If confirmed, I 
intend to assess logistics privatization efforts in context of desired 
outcomes and the national defense strategy. I would then share the 
results of that review with this committee.
                      public-private partnerships
    Question. Congress has encouraged the Department of Defense to 
establish partnerships between its equipment maintenance depots and 
private industry.
    What are your views on the extent to which the public and private 
sectors can and should work together?
    Answer. I believe that public-private partnering for depot 
maintenance support is very beneficial to both the Department and the 
private sector. It allows each sector to take advantage of its 
strengths, it can potentially reduce costs, it can result in better 
capacity utilization, and it allows each sector to learn the best 
practices of the other. As long as it makes good sense and complies 
with the law, I would not want to limit the use of public-private 
partnering.
    Question. Do you have any recommendations for facilitating such 
partnerships?
    Answer. In recent years, the Department has undertaken several 
efforts to document the extent of pubic-private partnering for depot 
maintenance support. Indications are that the amount of partnering is 
quite extensive. So it appears that existing authorities are working. 
If confirmed, I would like to take a more detailed look at perceived 
issues before recommending any specific changes.
                         technical data rights
    Question. Do you believe the government should purchase the 
technical data rights for new weapons systems to the extent necessary 
to provide the government the option of competing the life cycle 
maintenance of that weapons system among private sector offerors or 
performing such maintenance in government facilities as the need might 
be?
    Answer. I understand that the current policy states when an item is 
developed exclusively at the Government expense, we have ``unlimited 
rights'' to the data. When an item is developed with mixed (Government 
and Industry) funding the government has ``government purpose rights'' 
to the data for 5 years or other period as negotiated. It is only when 
an item is developed exclusively at private expense that it needs to 
negotiate for data rights. I believe the decision to purchase technical 
data rights needs to be decided on a case-by-case basis depending on a 
number of different factors. Also, I believe factors that should be 
considered include: the cost of the technical data rights; expected 
maintenance costs for the various alternatives; and whether maintenance 
of the weapon system is so critical that the government needs to 
maintain a capability to perform it.
                   maintenance of new weapons systems
    Question. When new weapons systems enter the inventory, should 
decisions on whether life cycle maintenance of those systems will be 
performed in the private sector, the public sector, or some combination 
of the two be made on the basis of lowest cost and best value to the 
government rather on a presumption that the source of repair should 
always be public or always be private?
    Answer. Many factors enter into the decision on which sector should 
provide life cycle support for a weapon system. These include 
requirements for organic core maintenance capabilities and best value. 
I believe certain capabilities must be retained in the public sector, 
most certainly including organizational maintenance for deployed combat 
systems. Depending on applicable law and best value, private sector 
support may offer advantages to the government. In many cases it may be 
a combination of public and private sector support. I believe each case 
has unique considerations that must be considered.
    Question. At what point in the life cycle of a new weapons system 
do you believe a decision on the long-term maintenance strategy for 
that system should be made?
    Answer. I believe this is an evolutionary decision, but a detailed 
plan needs to be defined by Milestone C, which is the commitment 
decision for the production and deployment phase.
                   policy on core maintenance issues
    Question. Is the Department currently reviewing existing policies 
on what policy skills and functions need to be maintained in government 
facilities? If so, when will the results of those reviews be provided 
to Congress?
    Answer. I have not studied any ongoing review that the Department 
might be conducting on policy as to which core maintenance skills and 
functions must be retained in government facilities. If confirmed, I 
would need to be thoroughly briefed on any such effort to fully 
appreciate its findings before developing.
                        depot maintenance policy
    Question. Section 2466 of Title 10, United States Code, requires 
that 50 percent of the funds made available in any given fiscal year be 
used for depot maintenance performed by employees of the Department of 
Defense. Section 2464 of Title 10, United States Code, requires that 
the Department of Defense maintain a core logistics capability that is 
government-owned and government operated. These requirements are 
intended to maintain ready and reliable depot maintenance skills and 
the capacity to support the needs of the military services during 
periods of both peace and conflict.
    Do believe that we need to maintain an in-house capability to 
perform depot maintenance on those weapon systems necessary to enable 
the Armed Forces to fulfill the strategic and contingency plans 
prepared by the Chairman of the Joint Chiefs of Staff?
    Answer. I believe that those depot maintenance capabilities that 
are essential to the national defense that cannot reliably be provided 
by the private sector must be maintained in the public sector. If 
confirmed, I have every intention of complying with the law, including 
these provisions of Title 10.
    Question. Section 2469 also requires that the Department maintain 
the capability to perform depot maintenance on new weapon systems 
within the public depots not later than 4 years after initial 
operational capability. It appears that the Department of Defense has 
been contracting with private sector sources for the depot maintenance 
on all new weapon systems rather than ensuring that some enter the 
public depot system.
    Do you believe that we can maintain modern and reliable public 
depots if we do not provide for them to perform work on the new weapon 
systems?
    Answer. It is section 2464 that provides for having capability not 
later than 4 years after initial operational capability. The key 
concept here is capability. When the current language requiring the 
establishment of capabilities within 4 years of initial operating 
capability was enacted, the conference committee agreed that it was not 
necessary that all work for systems required for the war plan be 
performed in public facilities. Rather, it is the capability to perform 
the work that must be retained and that the facilities be operated on a 
cost-effective basis. I believe that public depots require sufficient 
workload, including new weapon systems, in the respective core 
capabilities in order to sustain competency and operate efficiently. 
Workloads beyond this requirement can be considered for sourcing based 
on best value over the life cycle of the system.
    Question. If confirmed, will you ensure that new weapon systems are 
inserted into the public depots within 4 year of their IOC as required 
by law?
    Answer. As stated above, the law requires the establishment of 
capabilities. Weapon systems are not core. Core is skills, equipment, 
and facilities. If confirmed, I will endeavor to ensure that required 
skills, equipment, and facilities are established to support core 
capability requirements, as required by law.
    Question. Section 2474 of Title 10, United States Code, requires 
the Secretary of Defense to designate the public depots as Centers of 
Industrial and Technical Excellence in their core competencies and 
provide authority for the establishment of public private partnerships 
for the performance of depot maintenance at these centers. There have 
been proposals to enhance this authority by ensuring the depot will be 
held accountable when performing work as a subcontractor, and by 
allowing depot maintenance work performed by private sector entities at 
these centers to be counted toward the public share of 50/50.
    In light of the requirements to maintain a core depot capability, 
what actions do you believe should be taken to improve the efficiency 
of these facilities and foster cooperation between the public and 
private sector?
    Answer. Section 2474 was completely revised by the National Defense 
Authorization Act for Fiscal Year 2001. It provided extensive new 
authorities for the Department to enter into public-private 
partnerships, lease out under-utilized capacity, and sell articles and 
services to the private sector. If confirmed, I would want to determine 
the impact of these new authorities before proposing additional 
measures to foster public-private cooperation. The Department has in 
place a number of programs to improve the efficiency of depot 
maintenance facilities, including the capital purchase program and the 
military construction program. Because of the extremely austere funding 
environment the Department has faced in recent years, many high 
priority requirements have not been funded. Before advocating any 
specific measures, if confirmed, I would want to conduct a detailed 
review of requirements.
    Section 332 of the Senate version of the National Defense 
Authorization Act for Fiscal Year 2001 would allow the military 
services to lease out excess capacity in the military's industrial 
facilities to private business. It would allow the private sector to 
hire these facilities as subcontractors, if they chose to do so, and 
the work would not interfere with military requirements. The revenues 
generated through lease of excess capacity or through work for the 
private sector would be used to offset the overhead costs of these 
facilities thus reducing the burden on the Department of Defense and 
the American taxpayer.
    Question. Do you believe that the services should be permitted to 
pursue these initiatives if they choose to do so?
    Answer. Section 332 of the Senate version of the National Defense 
Authorization Act for Fiscal Year 2001 became section 341 of the 
enacted law. I fully support the law as enacted. I support use by the 
Services of these authorities when it is in the best interests of the 
Department and makes sound business sense.
    Question. One of the challenges to the efficiency of the public 
depots is the fact that the facilities in which the maintenance is 
conducted is relatively old and poorly designed for the workloads of 
the modern military. This is particularly true of the Air Logistics 
Centers, where maintenance on large jet aircraft is being conducted in 
facilities that were built to produce World War II era bombers. Air 
Force Materiel Command has developed a plan to replace these facilities 
with modern maintenance hangers.
    If confirmed, will you work to ensure that we modernize and 
maintain our public facilities so that they are able to efficiently 
perform their maintenance responsibilities?
    Answer. It is my understanding that the Air Force is still in the 
process of developing a long-term strategy for its depots. Though a 
draft of the strategy is approaching completion, it has neither been 
reviewed or approved by the Secretary of the Air Force nor has it been 
shared with anyone in the Office of the Secretary of Defense. If 
confirmed, I will thoroughly review requirements for modernization of 
public sector depot maintenance facilities.
                      movement of household goods
    Question. The Department of Defense is currently pursuing three 
pilot programs to improve the process whereby the household goods of 
military service members are moved from one duty station to another.
    What is the current status of these pilot programs?
    Answer. I am aware of three pilot programs; The Military Traffic 
Management Command (MTMC) Pilot; the Sailor Arranged Move (SAM) program 
and the Full Service Moving Project (FSMP). I am also aware that DOD's 
objective is to evaluate the results of all three pilots to determine 
the best provisions of a reengineered program for implementation 
throughout the Department, and if confirmed, I will evaluate the status 
and results of these programs.
    Question. Are they demonstrating improved moving service for our 
military families?
    Answer. If confirmed I will be thoroughly briefed on the specific 
issues and problems and will provide you detailed information on the 
programs.
                      base realignment and closure
    Question. Over the past several years, members of the Joint Chiefs 
of Staff have testified that there is excess defense infrastructure and 
requested Congress to authorize another round of base closure. The 
previous administration insisted that another round of base closures is 
needed to streamline the defense budget and to shift resources into 
personnel and weapons procurement. This administration has also called 
for the authorization of another round of BRAC.
    Do you believe that we have excess defense facilities and, if so, 
where does this excess capacity exist?
    Answer. I believe that an intuitive case, at least, can be made for 
further initiatives to reduce capacity, because I believe forces have 
been reduced more than bases. Only a comprehensive analysis could 
reveal where this excess capacity may exist. However, I also believe 
that simply eliminating excess capacity is only one part of the issue. 
It should be even more important for the DOD to review how its bases 
can be restructured to more efficiently support force structure and 
facilitate new ways of doing business.
    Question. Would you provide a list of those facilities for 
congressional consideration absent the authorization of another round 
of base closures?
    Answer. I have no such list. My experience tells me that only a 
comprehensive analysis could provide that detail.
    Question. What is your view about another round of BRAC limited to 
where excess capacity exists?
    Answer. Again, only a comprehensive analysis can reveal where 
excess capacity exists. I also believe that even if that analysis were 
completed, restricting future initiatives to those locations would 
preclude the DOD from looking at and rationalizing its entire base 
structure.
                          environmental issues
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment issues. These include environmental constraints on 
military training ranges, local community efforts to obtain military 
property, airspace restrictions to accommodate civilian airlines, and 
the assignment of radio frequency spectrum away from the Department of 
Defense.
    In your opinion, how serious are these problems for the Department?
    Answer. This is a critical training readiness issue. Historically, 
individual ranges address their own specific encroachment issues, most 
often on an ad hoc basis. I have observed that the Department has won 
some of these battles, and lost others. In the aggregate it appears the 
DOD is losing ground, sometimes literally. The complexity of issues 
involving Vieques, for example, illustrates just how serious these 
problems are and how challenging they are to address.
    The myriad forms of encroachment that face the DOD and our ranges 
threaten to complicate, and in some cases severely restrict, the 
Department's ability to conduct critical testing and training. The 
overall trends are adverse, because the number of external pressures is 
increasing, and the readiness impacts are growing. This is why I 
believe the Department must begin to address these issues in a much 
more comprehensive and systematic fashion. It will also be important to 
work with regulators, special interests, other Federal agencies, and 
communities in order to clearly define the issues from all viewpoints 
and to reach mutually acceptable solutions, whenever possible.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges and what actions would you propose to take 
to address them?
    Answer. I understand that the Department is addressing the wide-
ranging issues of encroachment and range sustainability identified by 
the Senior Readiness Oversight Council (SROC). I believe the DOD 
strategy for range sustainment should include a comprehensive 
sustainability framework that addresses the test and training mission, 
regulatory requirements, community support, and the range capabilities 
used to support the mission. The strategy should aid in identifying 
problems needing attention, both short and long-term, and whether it 
should be a local, regional, national, or a combined response. If 
confirmed, I expect my role in developing that strategy would be 
significant.
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action and those that 
will be out of compliance before the next budget cycle.
    Would you agree that continuing funding for these types of 
environmental compliance areas is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. Yes. Operating in an environmentally sound manner is a 
major factor in maintaining good relationships with the regulatory 
authorities as well as the communities that surround our military 
bases. DOD personnel also reside in those very same communities. In 
addition, operating in an environmentally sound manner is more cost 
effective than having to correct the effects of unsound practices at a 
later date.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of the environmental laws?
    Answer. No. I believe the Department of Defense should not be 
exempt from the application of the environmental laws. DOD should be 
held to the same standards. Environmental laws are constructed to 
protect human health and the environment, including the men, women, and 
children who work and live on Department of Defense installations. 
Congress has included clauses allowing the President to waive 
requirements of environmental laws when needed to protect national 
security. However, I do not believe the Department would ask the 
President to waive a requirement lightly.
    Question. Do you support the basic principle of the Federal 
Facilities Act and other laws that Federal facilities, including DOD 
facilities, should be subject to the same standards as comparably 
situated civilian facilities?
    Answer. Yes. I support the basic principles of the Federal Facility 
Compliance Act, signed by President George H. W. Bush. Environmental 
laws are part of the cost of doing business for every civilian 
community and private industrial facility.
    Question. The Department of Defense faces a bill for the cleanup of 
unexploded ordnance (UXO) that has been estimated to be at least in the 
tens of billions of dollars, and could be in the hundreds of billions 
of dollars. At current funding levels it has been estimated that it 
could take the military services several thousand years to remediate 
UXO problems on a DOD-wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    Answer. I cannot give you a recommended time frame for the cleanup 
of UXO today. That's something I'll have to look into, if confirmed.
    Question. Do you believe that increased investment in UXO 
remediation technologies would be likely to produce more effective and 
efficient remediation processes and substantially reduce the 
Department's long-term clean-up liability (and the time required to 
complete such clean-up)?
    Answer. Yes. Improvements in technology for any endeavor usually 
effects greater efficiencies. I would expect that increased investments 
in UXO remediation technologies would lead to more cost-effective and 
timely cleanup of DOD sites.
    Question. If confirmed, what actions will you propose to ensure 
that encroachment does not prevent the Armed Forces from effectively 
training and operating both at home and abroad?
    Answer. Increasingly, public pressure to limit range use is fueled 
by concerns over safety, noise, and environmental impacts generated by 
the use of military munitions in testing and training. Therefore, I 
believe that sound management of UXO should figure prominently in the 
Department's efforts to address range sustainability and encroachment 
issues identified by the Senior Readiness Oversight Council (SROC), and 
if confirmed, I will work diligently to reduce the impact of 
encroachment on training.
    Question. At what point will the Department have baseline data 
sufficient to provide a legitimate estimate of the bill for the cleanup 
of unexploded ordnance?
    Answer. I would have to look into that in more detail, if 
confirmed. At this point, I do not have the information to give you an 
answer.
    Question. Of particular concern is the cost and operational impact 
of environmental constraints. Some of the service chiefs have informed 
us that they spend more money each year complying with environmental 
regulations than they spend on training. We have seen in visits to 
military installations, the difficulty caused by compliance with 
environmental regulations on the ability of our military to train and 
operate today.
    What are your views regarding the prospect of reducing the cost to 
the Department of environmental compliance?
    Answer. I believe that the Department can continue to reduce the 
cost of environmental compliance by: (1) prudent investments in 
pollution prevention efforts and technology; and (2) working with 
regulators on a common sense approach to implementing existing laws and 
executive orders.
    Question. Do you believe that there may be legitimate national 
security interests that require regulators to make environmental 
compliance allowances to preserve such interests for the Department of 
Defense?
    Answer. Yes. I believe that in certain cases it might make sense 
for regulators to make allowances to preserve legitimate national 
security interests.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Acquisition, Technology and Logistics?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                         installation readiness
    1. Senator Thurmond. Ms. Morales, installation readiness is one of 
the more challenging issues that you will face if confirmed as the 
Deputy Under Secretary for Logistics and Materiel Readiness. As you may 
know, due to the underfunding of the real property maintenance 
accounts, the majority of installations are rated C-3 or below. What in 
your personal view is a realistic approach toward resolving this 
significant issue?
    Ms. Morales. Installation readiness is one of the more challenging 
issues that I will address if confirmed. Three simultaneous steps are 
required to reduce the number of C-3 and C-4 facilities. First, DOD 
must fully sustain our facility assets, to prevent deterioration and 
maximize service life. Second, DOD must establish a stable and focused 
program to modernize and replace our facilities, using a combination of 
O&M and military construction funds, to keep up with evolving standards 
and new technologies. I agree with Secretary Rumsfeld and General 
Shelton, who have stated in their testimony that DOD must tie this 
recapitalization investment to the expected service life of our assets, 
which is conservatively estimated to average about 67 years. Finally, 
DOD must continue to dispose of obsolete assets, so they do not drain 
away resources we need for sustainment, restoration, and modernization 
of our remaining facilities.

                         housing privatization
    2. Senator Thurmond. Ms. Morales, as you may know the Department is 
counting on the housing privatization initiative as the solution to 
resolving the quality of the military housing problem. Unfortunately, 
the new leadership appears to be under the impression that 
privatization is the final solution to the issue. In reality, it 
represents only a part of the total solution since there are 
installations at which the housing cannot be privatized and normal 
military family housing construction must be funded. Are you committed 
to the total family housing solution and not solely to the 
privatization effort?
    Ms. Morales. The Department is committed to a total family housing 
solution. The quality of housing for Service members and their families 
continues to be a critical element in supporting and retaining the high 
caliber personnel who make our armed forces the best in the world. But 
the majority of our military housing is old, below contemporary 
standards, and in need of extensive repair. Accordingly, the President 
and Secretary Rumsfeld have made improving housing one of their top 
priorities.
    The military housing privatization initiative is designed to 
support the Department's ongoing policy to have our Service members 
live in private housing. Approximately 60-70 percent of our military in 
the United States (CONUS) reside off base in private housing. The 
military services own and maintain housing where the private sector 
does not provide adequate housing for Service members. This is usually 
where housing is substandard or not affordable to our Service members. 
In testimony before various congressional committees over the last few 
years the Department has laid out a strategy to address this area--
which is to aggressively pursue a major 3-prong approach to benefit all 
Service members and improve their quality of life: (1) Increasing 
housing allowances to eliminate out-of-pocket costs paid by Service 
members for private sector housing in the United States. Higher basic 
allowances for housing (BAH) will help members who live off base to 
afford good quality housing. Both the quality and the availability of 
there off base housing options will immediately increase; (2) 
Strategically placing housing privatization projects where analyses 
have shown a greater housing requirement than the market can support. 
Higher allowances for housing will increase and enhance housing 
privatization, further improving Service member access to quality 
housing. Privatization is intended to enable the military services to 
revitalize their inventories of inadequate housing by leveraging 
appropriations with private capital. Under current privatization 
policy, the services must leverage appropriations to get at least three 
times the housing they would get under traditional military 
construction. In practice, the services have leveraged appropriations 
an average of six times; and (3) Maintaining Military Construction 
funding. The combination of increased allowances and continued use of 
privatization, where appropriate, will permit more efficient use of 
current military construction funding.
    Given the demands placed on the Department's budget, and the 
Secretary's new initiatives, we believe that privatization will help 
the Department reach the goal of revitalizing all the military 
services' inadequate housing (approximately 180,000 units) by the year 
2010. Under housing privatization, funding not required at one 
installation, is used to accelerate housing revitalization at another 
installation. This allows the Federal taxpayers dollars to be stretched 
farther and allows for a balanced approach between Military 
Construction funding and privatization. The leveraging through 
privatization is essential to achieve our goal of 2010, but where 
privatization is not viable; military construction funding will be 
requested.

    3. Senator Thurmond. Ms. Morales, in this era of high utility 
costs, does it make sense to continue the Department's efforts to 
privatize the utility infrastructure on defense installations?
    Ms. Morales. Yes, because todays high utility costs relate 
primarily to the commodity costs (electricity or natural gas) while our 
policy to privatize utility infrastructure is for the ownership, 
operation, and maintenance of actual utility distribution systems 
(i.e., the pipes, poles, wires, and plants). Our policy is to privatize 
utility distribution systems only when it is economically feasible to 
do so and when the system has not otherwise been exempted due to unique 
mission or security reasons. Parties potentially interested in bidding 
on our systems may not necessarily be the same as those selling us the 
commodity. There are normally separate utility commodity contracts for 
electricity and natural gas. The ownership, operation, and maintenance 
of utility distribution systems will generally be separate from the 
installations' commodity contracts. The economics of privatization of 
the distribution systems may be affected by the commodity sale 
situation, but our policy indicates that these factors be considered in 
the economic feasibility analysis required by Title 10, section 2688.
                                 ______
                                 
                Question Submitted by Senator Bob Smith
                            microelectronics
    4. Senator Smith. Ms. Morales, I understand that the previous 
Secretary of Defense deemed the Defense Microelectronics Activity 
(DMEA) as vital to our national defense and moved the organization from 
the Air Force to report directly to the Deputy Under Secretary of 
Defense for Logistics and Materiel Readiness. Since microelectronics 
remains the heart of our most sophisticated weapons systems, will you 
continue to support this extremely important organization as a Defense-
wide agency during your tenure?
    Ms. Morales. The DMEA is a unique and vital resource to our 
national defense. The activity was established to concentrate on the 
extraordinary issues surrounding microelectronics technologies that are 
common across all Services within the DOD. Microelectronics is the 
hidden, yet pervasive, key enabling technology which is the heart of 
``smart weapon systems,'' and a host of strategic and tactical assets 
for the warfighters. DMEA created original methodologies and innovative 
processes that produce solutions that are technically correct yet re-
create profitability for the industry. Notable is DMEA's ability to 
rapidly respond to the well-known, commercially-driven dynamic 
microelectronics environment with innovative and pragmatic solutions. 
DMEA has been highly utilized and praised by all the Services within 
the DOD, other Agencies in the Government, and by industry for its 
exceptional record of accomplishments.
    Much of DMEA's long list of inter-Service achievements is a direct 
result of DMEA's streamlined organizational structure. As such, I fully 
endorse and support DMEA as a defense-wide activity during my tenure.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
                          unexploded ordnances
    5. Senator Allard. Ms. Morales, UXO's or unexploded ordnances are a 
major concern for many on this committee. For example, last year 5 
sarin gas bomblets were found at the Rocky Mountain Arsenal and just 
last week, 4 more Sarin gas bomblets were located. I commend the job 
that the Army is doing at the Arsenal and for disposing of the 
bomblets, especially General Coburn of the Army Material Command. 
However, I am concerned that it will take 3 weeks before any of the 
only EDS destruction and disposal system is transported to Colorado. 
This lack of development of alternatives and lack of systems is of 
great concern. Can I get your assurances that the DOD will look and 
test other alternatives in order to ensure that we have the systems 
needed to deal with this important and dangerous problem?
    Ms. Morales. Senator Allard, it is our desire to have multiple 
tools to deal with the destruction of recovered chemical agent 
materials. I understand that the Army is taking action to ensure that 
appropriate disposal technologies are available to dispose of recovered 
chemical warfare materiel expeditiously.

                 clean-up of colorado state fairgrounds
    6. Senator Allard. Ms. Morales, I would like to call your attention 
to a matter between the Navy and the Colorado State Fair Authority. The 
Navy leased land at the Colorado State fairgrounds in Pueblo and in 
1946 they had two Reserve Center buildings constructed. Now there is 
some dispute as to the environmental clean-up of the site, specifically 
regarding the asbestos contained in the building and who will be paying 
for clean up. I would certainly appreciate it if you could look into 
the matter, and ensure the Navy is giving all due accommodations to the 
matter. The Colorado State Fair is a great institution, but not a rich 
one, and I would hate for them to be put at a disadvantage.
    Ms. Morales. If confirmed, I will certainly look into the matter, 
and communicate the results to you Senator.

                 rocky mountain low level waste compact
    7. Senator Allard. Ms. Morales, as you may know, the Rocky Mountain 
Low Level Waste Compact is congressionally mandated to take 
responsibility to dispose of federally-generated radioactive waste in 
the region. First, can you give me your thoughts about the compact 
system for disposing waste? Also, do you support the system and would 
you support a court challenge to invalidate the compact system?
    Ms. Morales. The Low Level Radioactive Waste Compacts serve a 
useful purpose by facilitating disposal for the Nation's LLRW. I know 
the DOD has supported the Compact system for the past 16 years and will 
continue to do so in the future.
    I am not aware of any scenario in which it would support a court 
challenge to invalidate the compact system.
                                 ______
                                 
    [The nomination reference of Diane K. Morales follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                      June 5, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Diane K. Morales of Texas, to be Deputy Under Secretary of Defense 
for Logistics and Materiel Readiness, vice Roger W. Kallock.
                                 ______
                                 
    [The biographical sketch of Diane K. Morales, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Diane K. Morales
    In February 1993, Diane Morales became president of DMS, Inc. (``D. 
Morales Services, Inc.'' in Virginia), a management services firm 
focused primarily on public and commercial logistics operations and 
systems planning. Management services include policy and program 
analysis, net assessments, strategic planning, government relations, 
legislative analysis, and public outreach.
    From 1990 to 1993, Ms. Morales served as Deputy Assistant Secretary 
of Defense for Logistics, and coordinated a comprehensive restructuring 
of defense logistics operations to improve performance and reduce 
business costs by $70 billion over 7 years. Logistics reengineering 
included integrating logistics policy, regulations, and procedures; 
developing and managing programs to reduce DOD inventories from $103 
billion to $55 billion by 1995; standardizing logistics systems and 
procedures, as well as improving business practices; consolidating and 
streamlining organizations; and achieving visibility of military assets 
to reduce supply costs and mobility requirements. Ms. Morales served in 
this capacity during Operation Desert Storm and played a substantial 
role in addressing airlift and sealift requirements.
    Prior to her DOD service, Ms. Morales was president of the 
predecessor firm to DMS, Morales Consulting Services Company (MCSC), 
established in August 1988. MCSC performed net assessment analyses, 
strategic planning, and policy/program analyses for the program areas 
of ICBM Modernization, the then-Strategic Defense Initiative, and for 
the environmental cleanup and compliance issues regarding the 
Department of Energy Defense Nuclear Complex.
    From 1986 to 1988, Ms. Morales served as Vice President of 
Government Affairs for the Earth Technology Corporation, a geotechnical 
and environmental services firm supporting primarily the siting and 
basing of the U.S. Air Force ICBM Modernization and SDI programs, as 
well as the Department of Energy hazardous/radioactive waste management 
programs.
    Between 1981 and 1986, Ms. Morales served in executive positions in 
several government agencies: the Department of the Interior as Deputy 
Assistant Secretary for policy; the Civil Aeronautics Board as Board 
Member; and the Office of Management and Budget (OMB) and the Consumer 
Product Safety Commission as a consultant on deregulatory issues.
    Ms. Morales was born in Houston, Texas. She received a B.A. from 
the University of Texas in Austin.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Diane K. 
Morales in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Diane K. Morales.

    2. Position to which nominated:
    Deputy Under Secretary of Defense for Logistics.

    3. Date of nomination:
    June 5, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 11, 1946; Houston, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Bellaire High School in Bellaire, Texas; graduated, 1964.
    University of Texas in Austin, Texas; BA, 1968.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
                         dms inc. 1993-present
    President: Heads management services firm focused primarily on 
defense and commercial logistics. Management services include policy 
and program analysis, net assessments, strategic planning, acquisition, 
and government relations/legislative analysis. Currently engaged in 
activities regarding Department of Defense strategic planning 
(Logistics 2010), information support systems, and best commercial 
logistics practices.
                    department of defense 1990-1993
    Deputy Assistant Secretary for Logistics: Managed DOD logistics 
operations; functions included supply/materiel management, maintenance, 
transportation, energy, international logistics, all support 
information systems, commissaries, and exchanges. Key accomplishments:

        <bullet> Resized DOD inventories, reduced operating costs, and 
        introduced commercial business practices;
        <bullet> Standardized, streamlined, integrated logistics 
        policies and procedures for standard systems development;
        <bullet> Consolidated DOD organizations and missions; and
        <bullet> Began changing the business culture with total quality 
        management.

    Supply/Materiel Management. Rewrote 80 separate policy documents 
regarding the supply system life cycle into single, integrated policy; 
developed the Inventory Reduction Plan as the vehicle to implement the 
new policy and save $18 billion. In 1990, the value of the on-hand 
inventory was $103 billion; by 1992, $86 billion; in March 1993, $80 
billion; by 1997, $55 billion (in constant 1990 dollars). In 1989, the 
Department spent nearly $30 billion managing the supply system, 
including the cost of new supplies; by 1992, $21 billion.
    Tracking Assets. Post Gulf War, developed comprehensive plan 
(Defense Total Asset Visibility Plan) to provide operators with full 
visibility of assets and their condition throughout the logistics 
network. The benefits are reduced procurement, smaller inventories, 
improved availability of assets for mission requirements, and better 
use of transportation assets. Also, conducted study to improve in-
theater distribution.
    Maintenance. Developed annual business plan to reduce business 
operations costs from $13 billion annually in 1990 to $6.4 billion in 
1997 by streamlining processes, personnel, and infrastructure; 
increasing inter Service  support and competition among Services/
between the Services and private industry; and improving utilization of 
capacity through realignment of workload and base closure.
    Transportation. Post Gulf War, consolidated wartime and peacetime, 
common-user and Service-unique transportation functions under single 
command; revised requirements for lift assets, the appropriate mix of 
strategic lift, and the augmentation of military assets with commercial 
assets under the DOD Mobility Requirements Study; corrected operational 
deficiencies after first activation of the Civil Reserve Air Fleet 
(CRAF) in Operation Desert Shield; laid out a corrective plan for the 
Department of Transportation's problematic activation and maintenance 
of the Ready Reserve Force, a government-owned fleet; and after 
reviewing internal air carrier oversight systems, military programs for 
aviation, and FAA/foreign aviation regulatory activities, initiated a 
series of higher quality and safety standards for commercial carriers 
serving DOD.
    Corporate Information Management (CIM). Directed the foundational 
logistics CIM initiative, the Department's program to standardize 
common functional information systems; determined requirements, 
identified candidate standard systems, and handed the product over to 
the Joint Logistics Systems Command (JLSC) for execution.
    International Logistics. With the North Atlantic Treaty 
Organization (NATO), developed cooperative logistics programs to reduce 
U.S. costs and to increase ``burdensharing'' among other members; 
prepared a Host Nation Support Model Agreement to accelerate logistics 
support agreements in countries where the U.S. expects conflicts (the 
result of Operation Desert Storm); chaired the Logistics Cooperation 
Committee subgroup that completed the Korean Wartime Host Nation 
Support Umbrella Agreement signed by the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
                     department of energy 1989-1990
    Consultant. Assessed the DOE, Office of Environment, Safety, and 
Health (ES&H) programs, policy, budget, congressional activity, 
environmental status (compliance) of all facilities, the changing 
environmental regulations, tracking of transportation of waste (nuclear 
and non-nuclear), and proposed Office initiatives.
 office, management and budget/consumer product safety commission 1985-
                                  1986
    Deregulation Consultant: Examined the deregulation of trucking, 
barge, maritime, rail, and mineral leasing (involving the Departments 
of the Interior and Transportation, and Interstate Commerce Commission) 
and made follow-on recommendations; developed program plan for the 
Consumer Product Safety Commission to encourage greater voluntary 
industry safety actions; the agency followed final recommendations.
                   civil aeronautics board 1983-1985
    Board Member: Completed domestic aviation deregulation; decided 
several major anti-competitive cases; determined carrier fitness; 
licensed U.S. and foreign carriers; regulated international aviation 
and negotiated international agreements.
                  department of the interior 1981-1983
    Deputy Assistant Secretary for Policy: Served as Acting Assistant 
Secretary of Territorial and International Affairs for half tenure; 
addressed issues regarding U.S. territories and the single Trust 
Territory; participant in negotiations to alter the relationship to the 
United States of the Trust Territory and the Northern Marianas.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    Currently limited to the following:
    SAP Public Services, Inc., Consultant to DOD, 1300 Pennsylvania 
Ave., NW., Suite 500, Washington, DC 20004.
    SAIC, support contractor on logistics contract, 7980 SAIC Court, 
Vienna, VA 22182.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
                        political organizations
    Reagan Alumni Association, Member, 1989-present.
    Bush Alumni Association, Member, 1992-present.
                       professional organizations
    National Defense Industrial Association, Logistics Committee, 1995-
present.
    Women in Defense, Member, 1999-present.
                        non-profit organizations
    S.A.F.E. Foundation (National Missile Defense), Board Member 2000-
present.
                          civic organizations
    Texas State Society (social), Board Member, 1996-present.
    Project Nehemiah (charity/orphanage), Board Member, 1996-present.
    American Cancer Society/Virginia, Board Member, 2000-2002.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    George W. Bush Presidential Exploratory Committee--$1,000.00.
    George W. Bush for President Compliance Committee--$1,000.00.
    Fundraising: Solicitor Tracking No. 7494, Bush Presidential 
Campaign.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Department of Defense Outstanding Public Service Medal in 1993.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Diane K. Morales.
    This 16th day of April, 2001.

    [The nomination of Diane K. Morales was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                                ------                                

    [Prepared questions submitted to Steven J. Morello, Sr. by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                     June 15, 2001.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                 Steven J. Morello.
Enclosure

cc: Hon. John Warner,
     Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes. These reforms have improved the readiness of our Armed 
Forces, and the ability of the Department of Defense to perform its 
assigned responsibilities. If confirmed, I will work to ensure that the 
Department of the Army properly and fully implements the reforms, in 
complete compliance with congressional intent.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. In my opinion, the Department of Defense has implemented 
these reforms. I am unaware of any specific reforms that have not been 
implemented. If confirmed, I will assist in ensuring that the 
Department of the Army fully implements the reforms, as Congress has 
directed.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The Goldwater-Nichols legislation has strengthened civilian 
control over the Armed Forces by clarifying the authority, 
responsibilities and relationships among the Secretary of Defense, the 
Chairman of the Joint Chiefs of Staff, the Service Secretaries, and the 
Combatant Commanders. The legislation also streamlined the chain of 
military command from the President to the Combatant Commanders; vested 
the Chairman of the Joint Chiefs of Staff with responsibility to serve 
as the principal military adviser to the President, the Secretary of 
Defense and the National Security Council; and facilitated joint 
decision-making by designating the Chairman as the spokesman for the 
Combatant Commanders, defining the Combatant Commanders' roles, 
establishing joint officer management policies and streamlining the 
Joint Staff's operations. Our Armed Force's improved performance on the 
battlefield and in operations other than war is attributable to the 
enhancement of command and control, joint operations and training, and 
interoperability brought about by these reforms. Finally, the 
Goldwater-Nichols legislation has heightened the efficiency with which 
the Military Departments organize, train, equip and administer forces 
in support of the Combatant Commanders' operational requirements.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes. If confirmed, I will work to ensure that the 
Department of the Army continues its efforts in furtherance of these 
goals, and that Congress' intent is fully realized.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am currently unaware of any reason to amend Goldwater-
Nichols. If confirmed, I will have an opportunity to assess whether the 
challenges of today's dynamic security environment require amendments 
to the legislation in order to achieve the objectives of the defense 
reforms.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Army?
    Answer. Section 3019 of Title 10, United States Code, provides that 
the General Counsel of the Army shall perform such functions as the 
Secretary of the Army may prescribe. The General Counsel provides legal 
advice to the Secretary of the Army, the Under Secretary, the Assistant 
Secretaries, and other offices within the Army Secretariat. As the 
chief legal officer of the Department of the Army, the General Counsel 
determines the controlling legal positions of the Department of the 
Army. The General Counsel's responsibilities extend to any matter of 
law and to other matters as directed by the Secretary. Examples of 
specific responsibilities currently assigned to the General Counsel 
include providing professional guidance to the Army's legal community, 
overseeing matters in which the Army is involved in litigation, serving 
as the Designated Agency Ethics Official, exercising the Secretary's 
oversight of intelligence and other sensitive activities and 
investigations, and providing legal advice to the Army Acquisition 
Executive.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The diversity and complexity of legal issues confronting 
the Department of the Army are such that no one lawyer can have in-
depth experience in all of them. However, the General Counsel must 
possess absolute integrity, mature judgment, sound legal and analytical 
skills, and strong interpersonal and leadership abilities. I believe 
that my background and diverse legal experiences in both the military 
and corporate environments have prepared me to meet the challenges of 
this office.
    I received my law degree from the University of Detroit Law School 
in 1977 and my Masters of Science Degree in Business Administration 
from Boston University's Metropolitan College in 1980, and served as a 
Judge Advocate officer in both the active Army and Army Reserve for 
over 8 years. I also served as a staff assistant to United States 
Senator Philip A. Hart. For the past 10 years, I have served as Vice 
President, General Counsel and Secretary for Prechter Holdings, Inc., a 
privately held company based in Southgate, Michigan. I have provided 
extensive legal and business advice to corporate executives in the 
automobile, publishing, hotel, real estate, and cattle ranching 
industries. Prior to my affiliation with Prechter Holdings, I provided 
legal services to the information technology industry as managing 
attorney for Digital Equipment Corporation, and served as a contract 
attorney for Northrop Corporation.
    I believe that my prior military service as a Judge Advocate 
officer, my experience in the legislative branch, and my extensive 
corporate background have prepared me for assuming the position of Army 
General Counsel and overseeing the delivery of legal services in the 
Army during this period of transformation. My knowledge of military 
legal practice and familiarity with corporate decision-making, and my 
experience with problem solving, client counseling and legal analysis 
have equipped me to address the challenges of this important position.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Army?
    Answer. I believe I have the requisite legal training and abilities 
and leadership skills to serve as the Army General Counsel. I look 
forward to dealing with the full array of legal issues arising from the 
operation of the Army. If confirmed, I will work with the 
extraordinarily talented civilian and military lawyers in the 
Department of the Army to broaden my expertise and increase my 
knowledge to better serve the Army.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary White would prescribe for you?
    Answer. I anticipate that Secretary White will rely on me to 
provide accurate and timely legal advice and help ensure that the Army 
complies with both the letter and intent of the law. Presumably, the 
current allocation of responsibilities set forth in the General Order 
prescribing the duties of each member of the Army Secretariat will 
remain in effect. Apart from these formally prescribed duties, I 
believe the Secretary of the Army would expect me to build a collegial 
and professional relationship with the General Counsels of the 
Department of Defense, the other Military Departments, and the Defense 
Agencies and, as required, the legal staffs of other Federal agencies. 
I anticipate that Secretary White will expect me to continue the 
extraordinarily effective and professional working relationship between 
the Office of the General Counsel and The Judge Advocate General and 
his staff. Finally, I anticipate that Secretary White will expect me to 
manage the General Counsel's office efficiently and effectively, and 
ensure that the Army legal community is adequately resourced to perform 
its important mission.
    Question. In carrying out your duties, how will you work with The 
Judge Advocate General of the Army?
    Answer. I believe that close, professional cooperation between the 
civilian and uniformed members of the Army's legal community is 
absolutely essential to the effective delivery of legal services to the 
Department of the Army. If confirmed, I will seek to ensure that the 
Office of the General Counsel, The Judge Advocate General and his staff 
continue to work together to deliver the best possible legal services 
to the Department of the Army.
    Question. How are the legal responsibilities of the Department of 
the Army allocated between the General Counsel and The Judge Advocate 
General?
    Answer. The Army General Counsel is the chief legal officer of the 
Department of the Army. The Office of the Army General Counsel is a 
component of the Army Secretariat, and provides legal advice to the 
Secretary of the Army and other Secretariat officials on all legal 
matters. Some of the Army General Counsel's specific duties under the 
current assignment of Secretariat functions include advising the Army 
Acquisition Executive, serving as the Designated Agency Ethics Official 
for the Army, overseeing compliance with the Freedom of Information Act 
and the Privacy Act within the Army, exercising the Secretary of the 
Army's oversight of intelligence activities and monitoring sensitive 
Army intelligence and criminal investigative activities for legality 
and propriety. The Judge Advocate General is the legal adviser of the 
Chief of Staff of the Army, members of the Army Staff, and members of 
the Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as military legal adviser to the 
Secretary of the Army. He also directs the members of the Judge 
Advocate General's Corps in the performance of their duties. By law, he 
is primarily responsible for providing legal advice and services 
regarding the Uniform Code of Military Justice and the administration 
of military discipline. The processing of military claims and the 
provision of legal assistance are other functions for which The Judge 
Advocate General is primarily responsible. The Office of the Army 
General Counsel and the Office of The Judge Advocate General have 
developed and maintain a close and effective working relationship in 
performing their respective responsibilities.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. The General Counsel of the Department of Defense is the 
Chief Legal Officer and final legal authority for the Department of 
Defense, including the Department of the Army. If confirmed, I 
anticipate establishing a close and professional relationship with Mr. 
Haynes, characterized by continuing consultation, communication and 
cooperation on matters of mutual interest, in furtherance of the best 
interests of the Department of Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Army?
    Answer. In my opinion, the major challenge will be to provide 
responsive, accurate legal advice regarding the broad array of complex 
issues likely to arise in connection with the Army's transformation in 
today's dynamic security environment. Although this environment makes 
it difficult to anticipate specific legal questions, I expect to 
confront issues relating to operational matters, acquisition reform, 
privatization initiatives, military and civilian personnel policies, 
compliance with environmental laws, and military support to civilian 
authorities in a variety of contexts.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will ensure that the Army's talented and 
dedicated lawyers continue to provide professional and responsive legal 
advice on every issue they address. I would endeavor to keep Army 
lawyers involved at all stages of the decision making process, because 
preventive law, practiced early in the formulation of departmental 
policies, can help the Department of the Army adapt to the changing 
operational environment. I would work diligently to adequately resource 
the Army legal community, in order to guarantee decision makers at all 
levels access to the best possible legal advice.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the General Counsel of the Army?
    Answer. I am not aware of any serious problems in this area. 
However, if confirmed, I will work hard to ensure that the Army legal 
community is adequately staffed and resourced to provide the 
responsive, accurate and timely legal advice necessary to ensure the 
Department of the Army's successful transformation.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed, I will ensure that any problems in performing 
the Army's legal functions are addressed promptly and through 
appropriate channels.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the General Counsel of the Army?
    Answer. If confirmed, I will prioritize legal issues in the manner 
that best serves the Department of the Army. I anticipate that the 
legal issues of highest priority will arise from the Army's 
transformation to meet the challenges posed by today's dynamic security 
environment. I will also ensure that the Army legal community continues 
to provide timely legal advice of the highest possible quality in 
response to the Department of the Army's recurring legal 
responsibilities and the numerous issues that the Army confronts every 
day.
                        military justice matters
    Question. Since Article 6 of the Uniformed Code of Military Justice 
gives primary jurisdiction over military justice to The Judge Advocate 
General, how do you see your functions in this area with regard to The 
Judge Advocate General of the Army?
    Answer. Article 6 of the Uniform Code of Military Justice requires 
The Judge Advocate General or senior members of his staff to make 
``frequent inspections in the field'' in furtherance of his 
responsibility to supervise the administration of military justice. 
Although The Judge Advocate General bears primary responsibility for 
administering the military justice system within the Army, I will, if 
confirmed, consult and cooperate with him on matters of mutual interest 
or concern relating to military justice, recognizing his statutory 
duties and special expertise in this area. If confirmed, I will work 
with The Judge Advocate General in establishing policy for the Army and 
safeguarding the integrity of the military justice system.
    Question. In your view, how should the General Counsel approach 
military justice matters--both in terms of specific cases and general 
policy issues to provide useful advice without generating problems of 
unlawful command influence?
    Answer. It is my view that to avoid the appearance or actuality of 
improper command influence, decisions in individual military justice 
cases must be entrusted to the accused's commander, the convening 
authority, the military judge, and court members. The General Counsel, 
like the Secretary of the Army and other senior civilian and military 
officials of the Department of the Army, must avoid any action that may 
affect or appear to affect the outcome of any particular case. The Army 
General Counsel helps to ensure that the military justice system and 
its judicial officers are shielded from inappropriate external 
pressures that may threaten or appear to threaten the independence of 
the military's judicial system or the commander's discretion in 
exercising his or her responsibilities under the Uniform Code of 
Military Justice to maintain good order and discipline.
    Question. In recent years, there have been a number of cases in 
which military members have been accused of adultery. Concerns have 
been raised about the consistency with which these cases have been 
handled.
    What do you see as the role of the General Counsel of the Army in 
ensuring that the Uniform Code of Military Justice is enforced in a 
fair and consistent manner?
    Answer. I understand that although The Judge Advocate General has 
the principal statutory role in military justice for the Army, he often 
coordinates with the Army General Counsel on particular matters 
associated with the fair and consistent enforcement of the Uniform Code 
of Military Justice. If confirmed, I will consult, as appropriate, with 
The Judge Advocate General on measures that may be necessary to ensure 
the proper administration of military justice.
    Question. Do you see a need for any changes in either the law or 
its implementation in this area?
    Answer. I am not aware of any such need at this time. I know that 
the Joint Services Committee on Military Justice conducts annual 
reviews of the military justice system and recommends appropriate 
changes to the law and the controlling Executive Order, The Manual for 
Courts-Martial. If confirmed, I would anticipate consulting with The 
Judge Advocate General on these matters and would be willing to provide 
you my views as to any particular legislative amendments or enactments 
that appear advisable.
                        whistleblower protection
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes.
    Question. If confirmed, what actions will you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. Department of Defense Directive 7050.6, Military 
Whistleblower Protection, implements Title 10, United States Code, 
section 1034, and affirms that members of the Armed Forces shall be 
free from reprisal for making or preparing a protected communication to 
a Member of Congress; an Inspector General; a member of a DOD audit, 
inspection, investigation, or law enforcement organization; or any 
other person or organization (within or outside the chain of command) 
designated under regulations or established procedures to receive such 
communications. If confirmed, I will work with The Judge Advocate 
General to ensure that military leaders are fully and accurately 
advised of the whistleblower protections accorded by law and 
regulation, and understand their legal responsibilities in this 
important area. In addition, I will ensure that any individual cases 
involving illegal reprisals that come to my attention are addressed in 
accordance with the law.
                            judicial review
    Question. What is your understanding of the appropriate role of the 
Article III courts in the review of military activities?
    Answer. The Constitution vests Congress and the President with the 
power to control the military. The Supreme Court has consistently 
observed that this power, as well as the role of Article III courts in 
construing it, should be reserved to the executive and legislative 
branches. Thus, the courts have held that the great majority of 
internal military decisions are not subject to judicial review. In 
those relatively few categories of cases in which judicial review of 
military activities is appropriate, I believe that the courts should 
accord substantial deference to executive and legislative judgments on 
military matters.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Army?
    Answer. The Army General Counsel's client is the Department of the 
Army, acting through its authorized officials. If a conflict arises 
between the interests of the Department of the Army and any of its 
officials, the General Counsel must recognize that the Department of 
the Army is the client. In addition, in view of the necessarily close 
relationship between the Department of the Army and the Department of 
Defense, the General Counsel should regard both departments as clients.
                              legal ethics
    Question. What is your understanding of the action a Department of 
Defense attorney should take if the attorney becomes aware of improper 
activities by a Department of Defense official who has sought the 
attorney's legal advice and the official is unwilling to follow the 
attorney's advice?
    Answer. As I understand the system, the Department of the Army 
attorney should bring the matter to the attention of his or her 
supervisor and, if necessary, to higher-level supervisory lawyers or 
other authorities in the chain of supervision or command. I would 
expect Department of the Army attorneys to pursue such matters to the 
extent necessary to correct the problem.
    Question. In your view, do the laws, regulations and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of Defense provide adequate guidance?
    Answer. Yes. As I understand the system in place, the Department of 
the Army has developed comprehensive rules in this area, applicable to 
military and civilian attorneys throughout the Department. These rules 
are based on both the American Bar Association's and the Federal Bar 
Association's Model Rules of Professional Conduct. They have been 
published as Army Regulation 27-26, ``Rules of Professional Conduct for 
Lawyers,'' and provide excellent guidance specifically tailored for 
Department of the Army attorneys. I also understand that because all 
Department of the Army attorneys are members of the Bar of a State or 
the District of Columbia, they are also subject to the rules of their 
respective Bars.
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Army in ensuring the integrity of the officer promotion process?
    Answer. Under Title 10, United States Code, Chapter 36, the 
Secretary of the Army is responsible for the proper functioning of the 
Department of the Army's promotion selection process. All reports of 
promotion selection boards are processed through the Office of the Army 
General Counsel prior to final action on the report by the Secretary. 
Consequently, the Army General Counsel must satisfy himself or herself 
that the Army has met applicable statutory standards and that 
individual selection board reports conform with the law. The Army 
General Counsel must advise the Secretary of the Army of any case in 
which a selection board report fails to adhere to the statutory 
standards, either generally or with regard to a particular officer 
being considered for promotion. In advising the Secretary of the Army 
and the Office of the Assistant Secretary of the Army (Manpower and 
Reserve Affairs), the General Counsel helps to ensure that Army 
promotion policies properly implement applicable laws and regulations 
and are fairly applied. Moreover, the Office of the Army General 
Counsel coordinates closely on these matters with The Judge Advocate 
General.
    Question. What is the role of the General Counsel of the Army in 
reviewing and providing potentially adverse information pertaining to a 
nomination to the Senate Armed Services Committee?
    Answer. As I understand the role of the General Counsel of the 
Army, the General Counsel's office reviews each selection board report, 
as well as Departmental communications to the committee, the President, 
and the Secretary of Defense concerning nominations, to ensure that the 
reports and communications comply in form and substance with law and 
regulation. The General Counsel's office gives special attention to 
cases of nominees with potentially adverse information, in order to 
ensure that such information is reported to the Senate Armed Services 
Committee in a timely manner.
             litigation involving the department of defense
    Question. In your opinion, what is the relationship between the 
Department of Defense and the Department of Justice with respect to 
litigation involving the Department of Defense?
    Answer. I understand that, pursuant to Title 28, United States 
Code, section 516, the Department of Justice is responsible for 
representing the United States, its agencies and officers in all 
litigation matters. Army attorneys assigned to the United States Army 
Legal Services Agency's Litigation Center work directly and very 
effectively with Department of Justice counsel in cases in which the 
Army is a party or has an interest. Consistent with the statutory 
responsibility of the Department of Justice, Army attorneys assist in 
drafting and reviewing pleadings, conduct discovery, participate in 
developing litigation strategy, and otherwise perform key roles in 
connection with trial proceedings.
    Question. Is the present arrangement satisfactory, or does the 
Department need more independence to conduct its own litigation?
    Answer. I am not aware of any problems in the present arrangement, 
or any need to accord the Department of the Army greater independence 
in conducting litigation but if confirmed, I will review the 
arrangement periodically to ensure that the Department has sufficient 
independence.
                       court of appeals decision
    Question. On January 4, 2000, the United States Court of Appeals 
for the District of Columbia Circuit decided the case of National 
Center for Manufacturing Sciences v. Department of Defense, 199 F.3d 
507 (D.C. Cir. 2000). The court concluded that ``Because of the 
existence of 10 U.S.C. Section 114, it is clear that any monies 
appropriated for NCMS by Congress for research must be authorized 
before they can be appropriated and distributed''; and ``Because 10 
U.S.C. Section 114(a)(2) requires authorization of these funds before 
they become available, appropriation alone is insufficient.''
    What is your view of the court's decision in this case and its 
implications regarding the obligation of funds that are appropriated 
but not authorized?
    Answer. In this case, the D.C. Circuit Court of Appeals affirmed 
the lower court's granting of the government's motion to dismiss for 
failure to state a claim. The Circuit Court based its decision on a 
provision of the National Defense Authorization Act for Fiscal Year 
1995 that effectively rescinded the unreleased portion of a fiscal year 
1994 funding earmark for the National Center for Manufacturing Sciences 
(NCMS). The Circuit Court concluded that, in view of this provision, 
NCMS had no legal entitlement to the funds in question. In my opinion, 
the issue of whether Department of Defense appropriations must be 
authorized before they can be appropriated, obligated or expended was 
not squarely presented for resolution in this case. Instead, the court 
addressed this question only collaterally. Situations where funds have 
been appropriated but not authorized are often complex and may involve 
unique statutory language. Thus, I anticipate that the Department of 
the Army will continue its practice of working closely with the Office 
of the Secretary of Defense and our oversight committees in properly 
resolving issues involving funds that have been appropriated but not 
authorized.
               role in military personnel policy matters
    Question. What role, if any, should the General Counsel play in 
military personnel policy and individual cases, including cases before 
the service boards for the correction of military records?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretary of the Army (Manpower and Reserve 
Affairs) and other senior Department of the Army leaders to ensure that 
the Department of the Army's military personnel policies are formulated 
and applied uniformly, fairly, and in accordance with applicable laws 
and regulations. If I were to become aware of individual cases in which 
military personnel policies were not fairly and lawfully applied, I 
would take appropriate action to ensure that the case is properly 
resolved. If confirmed, I will coordinate with the Assistant Secretary 
of the Army (Manpower and Reserve Affairs), who exercises overall 
supervision of Department of the Army Military Review Boards, to ensure 
that the Army Board for Correction of Military Records receives the 
Army legal community's full support.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                              procurement
    1. Senator Thurmond. Mr. Morello, as you are aware, the Army will 
be facing many critical procurement decisions as it fully carries out 
its transformation initiative. If you are confirmed as the next General 
Counsel of the Department of the Army what will be your participation 
in policy making and oversight of the procurement process within the 
Department of Army? What experience have you had with DOD procurement 
practices?
    Mr. Morello. The Office of the Army General Counsel has long 
enjoyed an outstanding relationship with the Office of the Assistant 
Secretary of the Army for Acquisition, Logistics, and Technology 
(ASA(AL&T)). Now that I have been confirmed, I will continue that 
tradition by establishing a close and professional relationship with 
the ASA(AL&T) and by ensuring that the General Counsel's staff provides 
sound and proactive legal, policy, and business advice in support of 
the Army's procurement process. I have first hand experience with the 
Department of Defense's procurement practices, both as a former Army 
Judge Advocate officer and later as a contracts attorney for Northrop 
Corporation's Defense Systems Division, where I administered Northrop's 
B1B Defensive Avionics contracts with the Department of the Air Force. 
I have also served as managing attorney for Digital Equipment 
Corporation, where I provided legal services to the information 
technology industry. Since 1991, I have served as Vice President, 
General Counsel and Secretary for Prechter Holdings, Inc., where I 
provided legal and business advice to corporate executives in the 
automobile, publishing, hotel, real estate, and cattle ranching 
industries.

                           inspector general
    2. Senator Thurmond. Mr. Morello, if confirmed, what will be your 
relationship with the Inspector General? What oversight will you have 
in regard to inspector general investigations?
    Ms. Morello. The Office of the Army General Counsel and the Office 
of the Inspector General have forged a longstanding, effective 
relationship that I am proud to continue. A member of the Office of the 
Secretary of the Army, the Inspector General inquires into and reports 
upon the discipline, efficiency and economy of the Army, as directed by 
the Secretary of the Army or the Chief of Staff. In addition, the 
Inspector General periodically proposes programs of inspection and 
recommends additional inspections and investigations as appropriate. As 
the chief legal officer of the Department of the Army and counsel to 
the Secretary and other Secretariat officials, I will maintain my 
office's close, professional relationship with the Inspector General, 
and will communicate with him directly and candidly as he performs his 
prescribed duties. I will provide independent and objective legal 
advice with regard to all matters that relate to the Inspector 
General's programs, duties, functions or responsibilities, and will 
oversee the provision of legal guidance to the Office of the Inspector 
General regarding the conduct of investigations. Further, as part of my 
responsibility to review legal and policy issues arising from the 
Army's intelligence and counterintelligence activities, I will advise 
the Inspector General concerning proper reporting of the Army's 
intelligence oversight activities.

                               workforce
    3. Senator Thurmond. Mr. Morello, a significant issue throughout 
the Department of Defense is its aging workforce and the looming loss 
of expertise because of retirements. What are your concerns regarding 
this issue as it related to the Office of the General Counsel?
    Ms. Morello. Recruiting, training, and retaining Army's civilian 
work force is critical to mission accomplishment. Army is proactively 
addressing this challenge. Army projects that many of its civilians, 
particularly those in leadership positions, will retire within a 
relatively brief time span of about 5 years, from 2003 to 2008. In 
preparation for the anticipated losses as the ``baby boomers'' in its 
workforce reach retirement age, the Army is currently planning to 
increase entry and mid-level intake to professional, administrative, 
and technological occupations. It is also employing more aggressive and 
effective recruitment strategies. It is centrally funding a Student 
Career Experience Program for college juniors and seniors who may be 
non-competitively placed in intern positions. In order to compete with 
private industry, Army is offering recruitment bonuses for engineers, 
scientists, and computer specialists; accelerated promotions for 
engineers and nurses; permanent change of station moves for all 
interns; and, in some cases, advanced in-hire rates of pay and 
repayment of student loans.
    In order to refine and accurately forecast future civilian work 
force needs, Army has developed and is using a sophisticated projection 
model that provides the capability to forecast future civilian needs 
under various alternative scenarios.
    Army is also working with OSD to identify hiring flexibilities and 
pay reform that would facilitate recruiting in today's tight labor 
market. Two legislative proposals are pending. One would authorize Army 
to make expeditious job offers to applicants who might otherwise accept 
an immediate private sector offer rather than wait for the slow Federal 
selection process. The second would authorize a broad-banding pay 
system that combines 15 current General Schedule grades into a few 
broad bands comprised of one or more grades. Groupings would consider 
work similarities, qualifications, training requirements, and common 
patterns of advancement within occupations.
    We are working with Army leadership to review the laws pertaining 
to civilian personnel to see where they might be modified to better 
enable Army to recruit, sustain, train, and retain a civilian work 
force capable of supporting the Army mission today and well into the 
21st century.

                          religious practices
    4. Senator Thurmond. Mr. Morello, the rise of various religious 
cults has challenged our military services because of the potential 
impact on morale and discipline. What are your views on the recognition 
of these religious cults by the military services?
    Ms. Morello. The Army recognizes and places a high value on a 
soldier's Constitutional right to practice and observe the tenets of 
his or her personal religious beliefs. Army Regulation (AR) 600-20 
provides guidance for accommodating religious practices within the 
United States Army and does not favor one form of religious expression 
over another. As a matter of policy, however, the Army does not support 
any activity, religious or secular, that is detrimental to good order 
and discipline. If the soldier's religious practice adversely impacts 
unit readiness, individual readiness, unit cohesion, morale, 
discipline, safety or health, the Army will not authorize the religious 
accommodation.
    Army Regulation 600-20 requires the submission of special requests 
for religious accommodation from the soldier to his or her immediate 
commander. If the commander foresees no adverse impact on good order 
and discipline or on mission accomplishment, the commander may approve 
the request. If circumstances change and the accommodation is no longer 
in the best interest of the Army, then the commander can revoke the 
approval. If the commander disapproves the request or revokes a prior 
approval, the soldier can appeal this decision to the Deputy Chief of 
Staff for Personnel. During the appeal process, a chaplain will 
interview the soldier and examine both the religious basis and 
sincerity of the request. While the requests and appeals are pending, 
soldiers must adhere to the orders and standards established by their 
immediate commanders. Soldiers whose appeals are denied may request 
separation from the Army.
    Under Army regulations, military chaplains have the responsibility 
of providing comprehensive religious support to soldiers and their 
families. As an exception to policy, however, civilian religious 
personnel may provide religious support when a military chaplain is 
otherwise unable to meet specific religious needs. Prior to using 
military chapels and unit facilities for religious services, civilian 
religious personnel must submit an application certifying that their 
religious organization has met certain regulatory requirements.

                          unexploded ornances
    5. Senator Thurmond. Mr. Morello, UXO's or unexploded ordnances are 
a major concern for many on this committee. For example, last year five 
sarin gas bomblets were found at the Rocky Mountain Arsenal and just 
last week, four more sarin gas bomblets were located. I commend the job 
that the Army is doing at the Arsenal and for disposing of the 
bomblets, especially General Coburn of the Army Material Command. 
However, I am concerned that it will take 3 weeks before any the only 
EDS destruction and disposal system is transported to Colorado. This 
lack of development of alternatives and lack of systems is of great 
concern. Can I get your assurances that DOD will look and test other 
alternatives in order to ensure that we have the systems needed to deal 
with this important and dangerous problem?
    Mr. Morello. I share your desire to ensure we have adequate means 
to respond to the discovery of chemical munitions. The Army must be 
prepared to take immediate action to protect human health and the 
environment whenever non-stockpile chemical warfare materiel is found. 
I understand that the Army is reviewing its policies, procedures, and 
responsibilities for responding to the discovery of chemical warfare 
materiel and taking steps to ensure that appropriate disposal 
technologies are available to dispose of recovered chemical warfare 
materiel on short notice. Now that I have been confirmed, I will work 
with the program proponents to clear the way for the use of destruction 
and disposal systems that are safe and effective.
                                 ______
                                 
    [The nomination reference of Steven J. Morello, Sr. 
follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                      June 7, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Steven John Morello, Sr. of Michigan, to be General Counsel of the 
Department of the Army, vice Charles A. Blanchard, resigned.
                                 ______
                                 
    [The biographical sketch of Steven J. Morello, Sr., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Steven J. Morello, Sr.
    Steve Morello was born the first of six children in Saginaw, 
Michigan, on September 17, 1952. He attended school in Carrollton, 
Michigan, and graduated from Carrollton High School in 1970. In 1974, 
Steve graduated from the Foreign Service School at Georgetown 
University in Washington, DC. While at Georgetown, he participated in 
Army ROTC and was awarded a 2 year scholarship to attend Georgetown by 
the Army. Steve attended University of Detroit Law School and graduated 
in May of 1977. In 1980 Steve was awarded a Masters of Art degree in 
Business Administration from Boston University. This year, Steve was 
awarded his second Masters in Art degree in Pastoral Studies from 
Sacred Heart Major Seminary in Detroit. In January of 1978, he joined 
the United States Army as a Captain and attended the Judge Advocate 
General's Basic Course in Charlottesville, Virginia.
    In May of 1978 Steve was married to Francia Ormond. They have been 
married now for 23 years and have three children, Steven Jr., Rebecca, 
and Christine. Steve served on Active Duty with the United States Army 
as a member of the JAG Corps from 1978 until 1982. He was assigned to 
service in Karlsruhe and Berlin, Germany and completed his active 
service at Ft. Sheridan in Illinois. He was awarded an Army 
Commendation Medal while serving in Berlin.
    After completing his military service, Steve joined Northrop 
Corporation and managed the Defense Systems Division's B1B defensive 
avionics contracts. Steve also worked for Digital Equipment Corporation 
in both Chicago and Detroit. Currently, Steve is the Vice President, 
General Counsel and Corporate Secretary for Prechter Holdings, Inc. PHI 
is a closely held corporation which manages almost one billion dollars 
worth of assets annually.
    In 1991 Steve was ordained a Deacon in the Roman Catholic Church. 
He enjoys spending his free time with his family and in service to the 
Church preparing couples for marriage and celebrating other sacraments 
with members of the Church. He has also served as a Campus Minister at 
University of Detroit Mercy Law School and most recently as a Wayne 
County Sheriff's Chaplain.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Steven J. 
Morello, Sr. in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Steven J. Morello.

    2. Position to which nominated:
    General Counsel of the Army.

    3. Date of nomination:
    June 7, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 17, 1952 in Saginaw, MI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Francia S. Morello (Ormond).

    7. Names and ages of children:
    Steven J. Morello, Jr. (20).
    Rebecca S. Morello (17).
    Christine M. Morello (12).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    a. Carrollton High School diploma 1970.
    b. Delta College: A.A. 1972.
    c. Georgetown University: B.S.F.S. 1974.
    d. University of Detroit Law School: J.D. 1977.
    e. Boston University: M.A B.A. 1980.
    f. Sacred Heart Major Seminary Certificate Diploma in Theology 
1991.
    g. Sacred Heart Major Seminary M.A.P.S. 2001 (summa cum laude).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Prechter Holdings, Inc, Southgate, MI: Vice President and General 
Counsel 1991 to present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Staff Assistant to United States Senator Philip A. Hart, 1972-1974; 
U.S. Army JAG Corps, Active Duty, 1978-1982; Reserves from 1982-1987, 
Rank of Captain.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Vice President and General Counsel for these Heinz Prechter owned/
controlled companies:
    i. Prechter Holdings, Inc.
    ii. ASC, Inc.
    iii. Heritage Network, Inc.
    iv. World Heritage Foundation
    v. ASCET, Inc.
    vi. Triad, Inc.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Michigan Bar Association.
    Illinois Bar Association.
    Computer Law Association.
    American Corporate Counsel Association.
    Works of charity include service as Roman Catholic Deacon in 
Archdiocese of Detroit.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Michigan Lawyers for Bush-Cheney.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    a. Army ROTC Full Tuition Scholarship.
    b. UAW 699 Tuition Assistance Scholarship.
    c. State of Michigan Tuition Grant.
    d. Prechter Holdings Community Service Award.
    e. Fellow--National Contract Management Association.
    f. Army Commendation Medal.
    g. Berlin Army of the Occupation Medal.
    h. Sault Ste. Marie Tribe of Chippewa Indians Self Sufficiency 
Tuition Award.
    i. Graduated in April 2001 from Sacred Heart Major Seminary Summa 
Cum Laude.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Steven J. Morello.
    This 8th day of May, 2001.

    [The nomination of Steven J. Morello, Sr., was reported to 
the Senate by Chairman Levin on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                                ------                                

    [Prepared questions submitted to William A. Navas, Jr., by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                     June 15, 2001.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                              William A. Navas, Jr.
cc: Hon. John Warner,
     Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. I am committed to the complete and effective implementation 
of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been fully implemented and 
that they have greatly clarified the responsibilities and authorities 
of the Secretary of Defense, the Secretaries of the Military 
Departments, the Joint Chiefs of Staff, and the Chairman of the Joint 
Chiefs.
    The effectiveness of our joint warfighting forces especially with 
respect to communication, interoperability, training, and joint 
operations, has improved as a result of these reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. In my view, the most significant value of these reforms has 
been to strengthen joint warfighting. Our military is stronger and more 
lethal because our Services can work better together.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control, improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am unaware of any proposals to amend Goldwater-Nichols. 
If confirmed, I will be in position to better understand and assess 
whether such proposals would be warranted. The implementation of the 
Goldwater-Nichols reforms has enhanced the ability of the Services to 
act quickly and jointly.
                                 duties
    Question. What are you understanding of the duties and functions of 
the Assistant Secretary of the Navy for Manpower and Reserve Affairs?
    Answer. Assistant Secretary of the Navy for Manpower and Reserve 
Affairs provides oversight of the formulation and execution of Navy and 
Marine Corps manpower and personnel policies and programs for Active 
Duty, Reserve and Civilian Personnel. Manpower and Reserve Affairs also 
develops health care policy and provides oversight and review of health 
care delivery initiatives. Last but not least, Manpower and Reserve 
Affairs administers personnel actions as authorized or delegated by 
Secretary of the Navy.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I served for over 33 years as a citizen-soldier, initially 
as a Regular Army Officer with combat duty in Vietnam, then as a 
traditional Guardsman while engaged in civil engineering and later as a 
full-time Active Guard and Reservist (AGR) with the Army National 
Guard. The last 11 years were spent as a General Officer in the 
Pentagon where I served in numerous high-level decision-making 
capacities including Director of the Army National Guard, Deputy 
Assistant Secretary of Defense for Reserve Affairs and Military 
Executive of the Reserve Forces Policy Board. I feel that those jobs 
have given me the experience and skills needed to successfully lead the 
Office of the Assistant Secretary of the Navy for Manpower and Reserve 
Affairs.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Navy for Manpower and Reserve Affairs?
    Answer. I have begun to study and receive briefings on the vast 
array of issues that I would be responsible for if confirmed as the 
Assistant Secretary of the Navy for Manpower and Reserve Affairs.
    Question. In carrying out your duties, how will you work with the 
Under Secretary of Defense for Personnel and Readiness, the Assistant 
Secretary of Defense for Force Management Policy, the Assistant 
Secretary of Defense for Reserve Affairs, the Assistant Secretary of 
Defense for Health Affairs, the Chief of Naval Personnel, the Deputy 
Chief of Staff of the Marine Corps for Manpower and Reserve Affairs, 
the Chief, Naval Reserve and the Commanding Officer, Marine Forces 
Reserve?
    Answer. If confirmed, it is my intention to work closely and 
directly with the Under Secretary, Assistant Secretaries, Service 
Chiefs and Commanding Officers to ensure that Assistant Secretary of 
the Navy for Manpower and Reserve Affairs maintains a clear focus on 
the priorities outlined by the Secretary consistent with the 
appropriate laws and Title X of the U.S. Code. I intend to encourage 
and foster teamwork within the Department of the Navy developing 
integrated product teams both within the civilian leadership and 
between the civilian leadership and their uniformed counterparts.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Assistant Secretary of the Navy 
for Manpower and Reserve Affairs?
    Answer. I share Mr. England's vision, that at the end of the day, 
our sailors, marines, and civilians should know that their contribution 
is important and feel that their work is both stimulating and 
rewarding. If confirmed, I will emphasize ``Quality of Service''--
achieving a higher quality workplace as well as a higher quality of 
life for our sailors, marines, active duty and reserve, and civilians 
and all of their families.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Navy for Manpower and Reserve 
Affairs?
    Answer. If confirmed, I will do whatever I can to support the 
Secretary of the Navy's four strategic thrusts--combat capability, 
people, technology and interoperability, and modernization of business 
practices. In particular--the people thrust. My goal, if confirmed as 
the Assistant Secretary for Manpower and Reserve Affairs, will be to 
create an environment where our men and women can excel at their chosen 
profession, unimpeded by factors that divert their attention from work. 
This includes providing:

        <bullet> Competitive compensation
        <bullet> Quality housing
        <bullet> Hi-tech workplace resources
        <bullet> Accessible and professional health care
        <bullet> Cutting edge training
        <bullet> Operational tempo that considers the individual, as 
        well as family and community.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will immediately work with the Secretary of 
the Navy to establish priority actions in each of these areas and then 
support him in initiating each as rapidly as possible.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Navy 
for Manpower and Reserve Affairs?
    Answer. None that I am aware of. If confirmed, I will immediately 
begin working towards improving the quality of service for our sailors 
and marines.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. None at this time.
                       officer management issues
    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest ethical and moral 
values.
    Do you believe the officer corps has confidence in the integrity of 
the officer promotion system in the Navy and Marine Corps?
    Answer. I believe the officer corps has confidence in the integrity 
of the officer promotion system in the Navy and Marine Corps. The 
services take considerable effort to ensure that promotion selection 
boards are impartial in terms of their management and the conduct of 
selection board deliberations.
    Question. What role do you, as Assistant Secretary of the Navy for 
Manpower and Reserve Affairs, expect to play in the officer promotion 
system?
    Answer. If confirmed, I will work with senior Service leaders to 
ensure that the promotion selection process is as fair. I would provide 
appropriate board guidance and monitoring.
    Question. What role do you, as Assistant Secretary of the Navy for 
Manpower and Reserve Affairs, expect to play in the general officer 
management and nomination process?
    Answer. If confirmed I intend to work closely with the Secretary of 
the Navy and support current regulations and polices regarding General 
and Flag officer management and nomination.
    Question. What steps will you take to ensure that only the most 
highly qualified officers are nominated for promotion to general and 
flag officer rank?
    Answer. If confirmed, I will work closely with senior Service 
leaders to ensure that the integrity of the promotion system remains 
inviolate.
                        protected communications
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes.
    Question. If confirmed, what actions would you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will be vigilant in ensuring that military 
members whose actions are protected by the Act are not subject to 
illegal reprisals or retaliation. I also understand that the current 
Department of the Navy practice is to brief the requirements of the Act 
to all prospective commanding officers and executive officers. If 
confirmed, I will ensure that emphasis on the Act in formal Navy 
training courses will continue.
                            operating tempo
    Question. The Services have been very concerned in recent years 
about the impact of the pace of operations, or ``OPTEMPO,'' on the 
quality of life of our people in uniform and specifically on their 
willingness to reenlist.
    What steps do you plan to take to address the Navy and Marine Corps 
OPTEMPO concerns?
    Answer. I recognize the delicate balance between quality of life, 
retention and meeting the operational requirements of the National 
Command Authority. Though not completely familiar with all current 
issues of OPTEMPO in DON, I believe that the Service Chiefs should be 
given flexibility to manage personnel issues in regards to operational 
demands. If confirmed I will work with the Secretary of the Navy to 
address the issues associated with OPTEMPO.
                        recruiting and retention
    Question. Recruiting and retention in the Navy have improved 
significantly over the last year. Yet the Navy continues to have 
shortages in critical specialties, and has an at-sea billet gap of 
6,000. The Marine Corps also has shortages in a number of high tech 
specialties.
    What steps will you take, if confirmed, to assist the Navy and 
Marine Corps in meeting their recruiting and retention goals?
    Answer. In a strong economy the military is in direct competition 
with the private sector. If confirmed, my goal will be to make the 
military an attractive and fulfilling career choice. I believe that the 
Assistant Secretary of the Navy for Manpower and Reserve Affairs should 
be an extremely strong advocate for the Recruiting Commands, both 
active and reserve. Serving as sailors and marines must continue to be 
perceived as a proud and enduring vocation providing high quality 
training and appropriate compensation.
    Question. Recent emphasis regarding recruiting and retention has 
been focused on the Active component. The Reserve components are facing 
even greater challenges in recruiting and retention.
    What steps will you take, if confirmed, to assist the Reserve 
components in achieving their recruiting and retention goals?
    Answer. As a former Reserve component chief, I consider myself a 
strong advocate for the Reserves. Just as with the Active component, 
the Reserve components are in competition for talented individuals with 
the private sector. If confirmed, I will ensure that the Reserves 
continue to be an integral component of the Navy and Marine Corps' 
Total Force recruiting effort.
                  management of deployments of members
    Question. The increasing operational demands on military personnel 
resulted in enactment of section 991 of Title 10, United States Code, 
and section 435 of Title 37, United States Code. Those provisions 
require the Services to manage the deployments of members and, if 
operational necessity so dictates, to pay per diem compensation to 
members whose deployed periods exceed prescribed limits. Additionally, 
each Service Secretary is required to establish a system for tracking 
and recording the number of days that each member of the armed forces 
under the jurisdiction of the Secretary is deployed.
    Do you support the statutory framework set forth in the sections 
cited above? If so, do you believe any modification to the law are 
necessary?
    Answer. The Department of the Navy is tracking OPTEMPO for each 
individual service member (ITEMPO). I understand that a Navy working 
group is currently studying how best to manage situations arising from 
implementation of this program. If confirmed, I plan to closely study 
the recommendations of this group and this important issue.
    Question. What is your understanding of the ability of the Navy and 
Marine Corps to comply with these statutes and implement the prescribed 
tracking and recording system?
    Answer. I understand that both Services are working hard to ensure 
compliance with all aspects of the statutes. If confirmed I will 
examine the effort to date and become more familiar with the tracking 
and recording systems.
                      armed forces retirement home
    Question. The Naval Home in Gulfport, Mississippi, and the 
Soldiers' and Airmen's Home in Washington, DC, provide unique services 
to eligible military retirees, but have experienced problems in funding 
and management.
    Do you support an increase in the amount of money automatically 
deducted from the pay of active duty personnel as a means of better 
funding the retirement homes?
    Answer. If confirmed, I will study this issue in-depth and work 
towards a long-term and comprehensive solution that will ensure the 
solvency of the Armed Forces Retirement Home Trust Fund.
    Question. If confirmed, what actions would you take to ensure the 
successful operation of the retirement homes?
    Answer. If confirmed, I would support any and all efforts that 
would ensure that both facilities are operated in an efficient manner 
and that they provide excellent quality of life for our military 
retirees.
                       homosexual conduct policy
    Question. Do you support the current Department of Defense (DOD) 
Homosexual Conduct Policy?
    Answer. Yes.
    Question. If confirmed, do you plan to make any changes to the 
basic policy or its implementation? If so, what changes will you 
propose?
    Answer. No.
                  anthrax vaccine immunization program
    Question. DOD considers the biological agent anthrax to be the 
greatest biological weapons threat to our military force because it is 
highly lethal, easy to produce in large quantities, and remains viable 
over long periods of time. The anthrax vaccination program has been 
curtailed because of limited quantities of FDA approved vaccine.
    If confirmed, will you support and enforce the Anthrax Vaccine 
Immunization Program if DOD reinstates it?
    Answer. Anthrax poses a clear and present danger to the Armed 
Forces of the United States; I would be remiss in my duties if I did 
not diligently pursue implementation of Secretarial directives 
pertaining to Anthrax Vaccine Immunization Program.
    Question. How do you believe the Navy and Marine Corps should 
respond to service members who refuse to take the vaccine when ordered 
to do so?
    Answer. It is imperative to maintain good order and discipline 
within the Navy and Marine Corps. I will support the enforcement of 
applicable statues and regulations.
                           montgomery gi bill
    Question. Almost all new service members enroll in and contribute 
to the Montgomery GI Bill. Only about half use their benefits, and many 
do not use all of their entitlement. Many sailors and marines say they 
would like to stay in the Service, but feel they have to leave so that 
they can provide for the education of their spouses and children. Some 
of these service members might stay in the service if they could 
transfer all or a part of their unused entitlement to GI Bill benefits 
to family members in return for a service commitment. Service 
Secretaries could use this retention tool selectively, just as they use 
reenlistment bonuses.
    If confirmed, will you give serious consideration to how the Navy 
and Marine Corps could use the transfer of unused GI Bill benefits to 
family members as a retention tool and provide your thoughts on how 
best to do this?
    Answer. If confirmed, I will give serious consideration towards 
this concept. I will defer offering any concrete thoughts or opinions 
until I have had more time to study the issue.
    Question. An alternative legislative proposal under consideration 
by the committee to address the cost of education for dependent spouses 
and children envisions the award of United States Savings Bonds to 
military members in connection with reenlistment.
    If confirmed, will you give serious consideration to how the Navy 
and Marine Corps could use the award of U.S. Savings Bonds as a 
flexible means to enable sailors and marines to save money for the 
education of themselves and their dependents?
    Answer. I understand that service members are concerned about their 
own education and that of their dependents. If confirmed I will 
seriously consider all efforts to improve Quality of Service, including 
this proposal.
                       gender integrated training
    Question. Basic training, which may be the single most important 
phase of an individual's life in the military, is structured and 
defined differently by each Service.
    Do you believe the current DOD policy of allowing each of the 
Services to establish its own policy for gender integration in basic 
training is effective?
    Answer. Yes. This policy allows the Services, each with their own 
unique military culture and professional ethos, the flexibility to 
conduct basic training in a manner that best instills the tenets of 
their culture.
                           concurrent receipt
    Question. Military retirees with disabilities incurred during their 
military service are eligible to receive military retired pay from the 
Department of Defense and veterans' disability compensation from the 
Department of Veterans' Affairs. However, current law requires that 
military retired pay be reduced by the amount of the veterans' 
benefits.
    If confirmed, would you support a change in the law to permit 
disabled military retirees to receive their full retired pay as well as 
their disability compensation?
    Answer. If confirmed, I will devote serious study to this important 
issue. I believe that disabled service member should be treated with 
the utmost care and fairness.
           management of the congressional fellowship program
    Question. For the past several years, the committee has expressed 
concern about the management of legislative fellows by the military 
departments and the Department of Defense.
    If confirmed, will you review the Department's policies pertaining 
to the management of legislative fellows and provide the committee your 
assessment of which management reforms have been implemented and which 
require additional action?
    Answer. Yes.
    Question. What are your personal views on the value and current 
management of the legislative fellowship program within the Navy and 
Marine Corps?
    Answer. From my initial briefings, I believe that the program is 
worthwhile and should be continued. The Department benefits from the 
assignment of its personnel to the legislative branch of government, 
where they gain insight into the process by which legislation is 
drafted and passed. The Department places a high priority on ensuring 
that internal procedures and controls support DOD policy relating to 
legislative fellowships.
    Question. After completing their fellowships, are legislative 
fellows assigned to positions in which the experience and knowledge 
they gained during their fellowship are used effectively?
    Answer. From my briefings, I understand that after completing their 
fellowships, legislative fellows generally return to assignments within 
their warfare specialties. Subsequent tours of duty, as coordinated by 
the officer assignment managers, often allow officers to apply 
experience gained during their fellowships.
    Question. In your opinion, is it appropriate to bring a Reserve 
component member on active duty solely to participate in a legislative 
fellowship program?
    Answer. As an advocate for the Total Force, I believe in parity 
between the Active Duty and Reserves. Our Reserve sailors and marines 
bring a tremendous amount of experience and talent to each and every 
mission of our service, including legislative liaison. If confirmed I 
will spend time studying this issue and look for ways to integrate 
reservists into this important program.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                              military pay
    1. Senator Thurmond. Mr. Navas, for the past several years, 
Congress and the administration have provided significant increases in 
military pay and compensation. Despite these increases, recruiting of 
new soldiers and the retention of the highly trained personnel has been 
a problem in several of the services.
    Based on your long and distinguished career in the Army National 
Guard and long association with military issues, how do you rate 
compensation over such issues as quality of life and personnel tempo as 
a motivator for a military career?
    Mr. Navas. Military compensation has long been an extremely 
important element in the military services' efforts to achieve and 
sustain optimum personnel readiness. Having said that, there is clear 
and convincing evidence that quality health care, educational 
opportunity, family separation, adequate housing, promotion opportunity 
and availability of morale, welfare and recreation facilities are also 
significant contributing factors to the career decisions of service men 
and women.
    In the current climate of unprecedented competition from the 
private sector for America's best and brightest, an appropriate balance 
of military compensation and assured ``quality of Service'' is clearly 
the best approach to influence military families to commit to military 
careers. Ultimately, all of these elements impact the ability of the 
armed services to achieve optimum personnel readiness in the near-term 
and sustain it over the long-term.

                           reserve component
    2. Senator Thurmond. Mr. Navas, as I indicated in my opening 
statement, once you are confirmed as the Assistant Secretary of the 
Navy, your long and distinguished career as a Citizen Soldier will be a 
great benefit to you and our sailors and marines. In view of this 
experience, what do you see as the greatest challenge facing our 
Reserve components? 
    Mr. Navas. The biggest challenge facing us is reconciling reservist 
availability to the Active components' increasing demand for their 
services. This is a particularly difficult issue within the Navy, whose 
main purpose is to provide combat-credible, forward deployed forces to 
respond to crises. That puts a lot of strain on the Active Force, and 
we try to relieve the strain by employing our reservists in peacetime. 
Our nearly 90,000 citizen-sailors absolutely want to contribute but, if 
we try to do too much, we simply shift the ``strain'' from the Active 
to Reserve sailors. Balancing job, family and Navy is difficult. Our 
job is to find opportunities to do more--and more efficiently--with our 
reservists.

                             cross decking
    3. Senator Thurmond. Mr. Navas, due to critical shortfalls in 
certain specialties, the Navy has been cross-decking personnel from a 
ship coming off deployment to a ship going on its deployment. The 
result has been an increased in personnel tempo and morale problems.
    What is the current extent of cross decking and how do you plan to 
minimize the impact of this practice?
    Mr. Navas. The need to crossdeck sailors is directly tied to 
shortages in our at sea manning. During the drawdown the Navy 
experienced difficulties in manning our deployed units. The shortfall 
peaked in late fiscal year 1998 due to numerous factors, an 
exceptionally strong national economy, not meeting our recruiting goals 
for several years and poor retention. Today through renewed efforts in 
recruiting and retention the at sea manning shortfall has fallen to 
less than one third of the 1998 levels and continues to trend downward. 
Correspondingly the need to crossdeck sailors has fallen. In Pacific 
Fleet, for example crossdeck needs have fallen from an peek average of 
90 sailors a month at end of fiscal year 1998 and the first half of 
fiscal year 1999 to less than 35 sailors a month on average for the 
first half of fiscal year 2001. We are continuing to address the at sea 
manning shortfalls through better management of all sea duty eligible 
sailors, focused efforts on recruiting and retention and efforts to 
decrease attrition form afloat commands.
                                 ______
                                 
    [The nomination reference of William A. Navas, Jr. 
follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                      June 7, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William A. Navas, Jr. of Virginia, to be Assistant Secretary of the 
Navy, vice Carolyn H. Becraft.
                                 ______
                                 
    [The biographical sketch of William A. Navas, Jr., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of William A. Navas, Jr.
    William A. Navas, Jr. is currently a Defense and Management 
Consultant, specializing in the areas of program analysis, business 
development and strategic planning. He is a retired Major General in 
the United States Army.
    Mr. Navas has had a long and distinguished career in public service 
and the military. From 1995 to 1998, he was the Director of the Army 
National Guard, responsible for the development and coordination of all 
programs, plans and policies affecting the Army National Guard. Prior 
to that, he was the Deputy Assistant Secretary of Defense/Chief of 
Staff for Reserve Affairs from 1994 to 1995. In that position, he was 
responsible for the integration of programs and policies for the 
Reserve components of all the Services, including the Coast Guard.
    From 1992 to 1994, Mr. Navas was a Military Executive with the 
Reserve Forces Policy Board. Before that, he was the Vice Chief of the 
National Guard Bureau from 1990 to 1992, the Deputy Director of the 
Army National Guard from 1987 to 1990, and the Director of Plans, 
Operations, Training and Military Support for the Puerto Rico Army 
National Guard from 1981 to 1987. Mr. Navas was the principal in 
various design, land development, and general construction enterprises 
in western Puerto Rico from 1970 to 1981. Finally, from 1966 to 1970, 
he served in the United States Army as a Post Engineer in Germany, a 
Combat Engineer Company Commander in Vietnam, and as Engineer Advisor 
to the National Guard.
    Mr. Navas graduated from the University of Puerto Rico in 1965 with 
a B.S. degree in Civil Engineering, and from the University of 
Bridgeport in 1979 with an M.S. degree in Management Engineering. In 
1982, he studied at the Interamerican Defense College in Washington, 
DC, and in 1990, he participated in the Program for Senior Managers in 
Government at the Kennedy School of Government at Harvard University.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by William A. 
Navas, Jr. in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William A. Navas, Jr. (Bill/Billy).

    2. Position to which nominated:
    Assistant Secretary of the Navy for Manpower and Reserve Affairs 
(ASN-M&RA).

    3. Date of nomination:
    June 7, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 15, 1942, Mayaguez, Puerto Rico.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Wilda M. Cordova.

    7. Names and ages of children:
    William A. Navas III--35.
    Gretchen M. Navas--32.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Immaculate Conception Academy,1956-1960, High School Diploma.
    University of Puerto Rico, 1960-1965, BS in Civil Engineering.
    University of Bridgeport, 1976-1979, MS in Management Engineering.
    Interamerican Defense College, 1981-1982, MEL1 Diploma.
    Harvard University, JFKSG, 1991, Senior Managers in Government 
Certif.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Independent Consultant, various organizations (see item 11), 
Washington, DC, 1998-present.
    Director, Army National Guard, National Guard Bureau, Washington, 
DC, 1995-1998.
    DASD (RA), OSD, The Pentagon, Washington, DC, 1994-1995.
    Military Executive, Reserve Forces Policy Board, The Pentagon, 
Washington, DC, 1992-1994.
    Vice Chief, National Guard Bureau, The Pentagon, Washington, DC 
1990-1992.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
                      organization and affiliation
    Burdeshaw Associates, Ltd.--Associate.
    CALIBRE Systems, Inc.--Consultant.
    Systems Management Engineering--Consultant.
    James Martin Government Intel.--Consultant.
    Booth, Allen & Hamilton--Consultant.
    Wilbur Smith & Assoc.--Consultant.
    American Systems International--Consultant.
    Avue Technologies--Consultant.
    Modern Technologies Corp.--Consultant.
    IT Group Inc.--Consultant.
    Price Waterhouse Coopers--Consultant.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Army Engineer Association Member, Board of Directors.
    Minuteman Institute for National Defense Studies Member, Board of 
Directors.
    Buffalo Soldiers Foundation Member, Board of Directors.
    American Veterans' Committee for Puerto Rico Self-Determination, 
Chairman.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican National Committee, $250.00, 1/29/00.
    Election Committee, Cong. Carlos Romero Barcelo, $250.00, 9/9/00.
    Republican National Committee, $250.00, 9/9/00.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
                                civilian
    Distinguished Military Student, University of Puerto Rico, 1964.
    Distinguished Military Graduate, University of Puerto Rico, 1965.
    Hispanic Magazine Avanzando Award.
    National IMAGE, Inc. Meritorious Service Award.
    National Guard Association of the U.S. Meritorious Service Medal.
    National Guard Bureau--Eagle Award.
    National Guard Bureau--Distinguished Service Award.
    Phi Sigma Alpha Fraternity--Distinguished Citizen Award.
    Phi Sigma Alpha Fraternity--Distinguished Service Medal.
    Army Engineer Association--Silver DeFleury Medal.
    Artillery Association--Order of St. Barbara.
    Illustrious Alumni Designation--University of Puerto Rico.
    Biographee ``Who's Who in America''.
    Knight, Equestrian Order of the Holy Sepulchre of Jerusalem.
                                military
    Defense Distinguished Service Medal.
    Army Distinguished Service Medal.
    Defense Superior Service Medal.
    Legion of Merit with Oak Leaf Cluster.
    Bronze Star Medal.
    Defense Meritorious Service Medal.
    Meritorious Service Medal with Oak Leaf Cluster.
    The Air Medal.
    Army Commendation Medal with two Oak Leaf Clusters.
    Reserve Components Achievement Medal.
    National Defense Service Medal with star.
    Vietnam Service Medal with 4 campaign stars.
    Humanitarian Service Medals.
    Reserve Components Medal w/Hourglass Device.
    Army Service Ribbon.
    Overseas Service Ribbon.
    Reserve Components Overseas Deployment Ribbon.
    Republic of Vietnam Campaign Medal.
    OSD Staff Badge.
    Army Staff Badge.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
                                papers:
    Threat of Civil Unrest and Insurrection, . . . to insure domestic 
tranquility, provide for the common defence . . . Strategic Studies 
Institute, October 2000.
    The National Security Act of 2002, Organizing for National 
Security, Strategic Studies Institute, November 2000 Articles.
    Posse Comitatus, the Army of the 21st century and the Law of 
Unintended Consequences, National Guard Magazine, January 1999.
    The ``Five Rs'' of Army Integration and the Crucial Element, 
National Guard Magazine, July 1999.
    The Army, Guard included, Needs to Tell its Story, National Guard 
Magazine, June 2000.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have not delivered any speeches relevant to the position for 
which nominated.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   William A. Navas, Jr.
    This 9th day of June, 2001.

    [The nomination of William A. Navas, Jr. was reported to 
the Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                                ------                                

    [Prepared questions submitted to Michael W. Wynne by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                     June 15, 2001.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advanced 
questions that the Senate Committee on Armed Services asked me to 
complete.
            Sincerely,
                                                  Michael W. Wynne.
cc: Hon. John Warner,
     Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. From your close association with 
defense issues, you have had an opportunity to observe the 
implementation and impact of those reforms.
    Do you support full implementation of these defense reforms?
    Answer. If confirmed, I will fully support the intent of the 
reforms and advocate policies that will facilitate accomplishment of 
joint operations, streamline acquisition management and oversight, and 
enhance the Department's ability to respond to our 21st century 
national security challenges.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. The enactment of Goldwater-Nichols significantly improved 
the organization of the Department of Defense, focused our joint 
warfighting capabilities, and enhanced the military advice received by 
the Secretary. However, given the passage of time, I support Secretary 
Aldridge's view that it is worthwhile to review the Department's 
implementation and make appropriate adjustments, if needed. In 
particular, if confirmed, I will emphasize a closer partnership between 
the acquisition and operational requirements communities and an 
efficiently organized management and support infrastructure that will 
reduce the time it takes to provide new warfighting capability while 
enhancing the effectiveness of our existing systems.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of the Goldwater-Nichols 
Department of Defense Reorganization Act, seem to me to be 
strengthening civilian control; improving military advice; placing a 
clear responsibility on the combatant commanders for the accomplishment 
of their missions; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Question. Do you agree with these goals?
    Answer. Yes, I support full implementation of the Goldwater-Nichols 
reforms and agree with its goals.
                                 duties
    Question. Section 133 of Title 10, United States Code, describes 
the duties of the Under Secretary of Defense for Acquisition and 
Technology and Logistics (USD(ATL)).
    Assuming you are confirmed, do you expect that Secretary Rumsfeld 
will prescribe additional duties for you?
    Answer. If confirmed, I will support the Secretary, Deputy 
Secretary, and the Under Secretary as best as I am able. To answer your 
question specifically, I would expect that the USD (AT&L) would assign 
any additional duties, but I certainly will carry out all assigned 
tasks and unassigned tasks as prescribed by law and directive.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties and those outlined in the 
law and applicable DOD directives?
    Answer. I have spent most of my career in weapons systems 
development and acquisition following 7 years as an Air Force officer. 
Over the past quarter of a century, I have gained experience and skills 
I think will enable me to carry out the duties required by the 
acquisition and technology position. Throughout my career, I have been 
blessed to have worked with outstanding individuals--leaders, 
colleagues, and subordinates--who have taught me a lot in how to 
manage, lead, and follow. I believe this perspective and the knowledge 
I have gained through different positions and working with many 
different people will aid me in carrying out the duties of this 
position.
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. Life is a continuing learning experience. I think it is 
most important to listen and talk to the people who are subject matter 
experts, listen to people in the field, communicate with the Military 
Departments, Joint Staff, and Congress, and most importantly talk to 
the warfighter. If confirmed, I will get up to speed as soon as 
possible so I can perform my duties to the best of my abilities.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld and Mr. Aldridge would prescribe for 
you?
    Answer. Title 10, United States Code, is of course, the starting 
point for all the duties to be considered. There are also Department of 
Defense Directives that cover broadly the duties of the USD(AT&L) and 
the DUSD(A&T). I look to these laws and directives as the guiding 
principles. Finally, if confirmed, I will perform any duties delegated 
to me by Secretary Rumsfeld and Mr. Aldridge.
    Question. If you are confirmed as Deputy Under Secretary of Defense 
for Acquisition and Technology, what will your relationship be with 
each of the following:
    The Under Secretary of Defense for Acquisition, Technology, and 
Logistics.
    Answer. Mr. Aldridge would be my boss and I would support him to 
the best of my ability.
    Question. The Deputy Under Secretary of Defense for Logistics and 
Material Readiness.
    Answer. The DUSD(L&MR) would be a peer and colleague in supporting 
the USD(AT&L).
    Question. The Director of Defense Research and Engineering.
    Answer. The DDR&E would be a peer and colleague in supporting the 
USD(AT&L).
    Question. The Deputy Under Secretary of Defense (Installations and 
Environment).
    Answer. The DUSD(I&E) reports to the DUSD(L&MR).
    Question. The Chief Information Officer of the Department of 
Defense.
    Answer. The CIO is under the purview of ASD (C\3\I). The 
relationship would be one of coordination and communication on 
positions that relate to the USD (AT&L).
    Question. The Defense Acquisition Regulatory Council.
    Answer. The DARC is overseen by the Director, Defense Procurement, 
who reports to the DUSD(A&T). Issues and challenges would certainly be 
dealt with in a direct and positive way.
    Question. The Secretaries of the military departments.
    Answer. There are so many issues of mutual concern that 
coordination is demanded, and of course if confirmed, that is what I 
would do.
    Question. The Assistant Secretaries of the military departments for 
research, development, engineering.
    Answer. The Assistant Secretaries play a key role in acquisition, 
technology, and logistics as Component Acquisition Executives. 
Communication and coordination, as with the Secretaries of the Military 
Departments, are essential.
    Question. The Director of the Defense Advanced Research Projects 
Agency (DARPA).
    Answer. DARPA reports through DDR&E, a peer. If confirmed, I expect 
that I will enlightened on the many different projects that DARPA is 
working and support DARPA activities.
    Question. The Director of the Defense Logistics Agency.
    Answer. DLA reports to the DUSD(L&MR) and the DUSD(L&MR) would be 
my peer.
    Question. The Director of Operational Testing and Evaluation.
    Answer. The DOT&E is a peer and plays a very key role in certifying 
tests before a program can move forward through the acquisition 
process. If confirmed, I expect to coordinate with the DOT&E on testing 
and evaluation issues.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Under Secretary of Defense for Acquisition and 
Technology?
    Answer. If confirmed, the major challenges I will face include: (a) 
improving the cost and schedule performance of our major acquisition 
programs by focusing on actions to reduce acquisition cycle time and 
control cost growth; (b) implementing new DOD acquisition policies to 
emphasize evolutionary acquisition and time-phased requirements; and 
(c) maintaining effective communications with the Services and the 
defense industry.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. It is my understanding that the USD(AT&L) has established 
as a top priority a goal to improve the credibility and effectiveness 
of the acquisition and logistics process. To assist him in achieving 
this objective, I believe he is looking at some metrics to use to be 
able to measure key aspects of the acquisition cycle. I would think 
appropriate metrics would be to reduce acquisition cycle time or 
eliminate cost growth. If confirmed, he and I will oversee the 
execution of the Department's acquisition programs to identify areas 
needing improvement or better ways of doing business that will then 
accomplish the objectives and overcome the challenges I outlined above.
    If confirmed, the USD(AT&L) and I also will meet regularly with the 
Service acquisition leadership and with leaders of the defense industry 
to maintain open and effective communications.
    I believe that the USD(AT&L) already has announced his intention to 
open a new dialog with the Services and defense industry through 
regular, high-level meetings and annual, cooperative reviews of major 
contracts with the leading defense contractors.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Under Secretary of 
Defense for Acquisition and Technology?
    Answer. I consider the most serious problems that I need to 
address, if confirmed, to be those associated with the USD(AT&L)'s five 
stated goals. These goals are:

        (1) Achieve Credibility and Efficiency in the Acquisition and 
        Logistics Support Process;
        (2) Revitalize the Quality and Morale of the Acquisition 
        Workforce;
        (3) Improve the Health of the Defense Industrial Base;
        (4) Rationalize the Weapon Systems and Infrastructure With the 
        New Defense Strategy; and
        (5) Initiate High Leverage Technologies to Create the Weapon 
        Systems and Strategies of the Future.

    More specifically, the problems I need to address, if confirmed, 
will center around finding ways to measure how effectively we are 
meeting these goals.
    Question. What management actions and timelines would you establish 
to address these problems?
    Answer. If confirmed, I intend to develop more detailed objectives 
that will support the USD(AT&L)'s goals. Certainly, the bottom line is 
to identify those capabilities and policies that are required to 
deliver and sustain the necessary combat capability required by the 
military strategy. As for a timeline, I need to delve further into 
these issues, before I am prepared to present an actual timeline.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues that must be addressed by the Deputy Under Secretary of Defense 
for Acquisition and Technology?
    Answer. If confirmed, I plan to explore more detailed subordinate 
goals to support Mr. Aldridge's five goals in order to bring them to 
the operational level. As you may recall, his five goals are to:

        (1) Achieve Credibility and Efficiency in the Acquisition and 
        Logistics Support Process;
        (2) Revitalize the Quality and Morale of the Acquisition 
        Workforce;
        (3) Improve the Health of the Defense Industrial Base;
        (4) Rationalize the Weapon Systems and Infrastructure With the 
        New Defense Strategy; and
        (5) Initiate High Leverage Technologies to Create the Weapon 
        Systems and Strategies of the Future.

    Beyond these, there are many challenges that confront me, if 
confirmed, and they run the full spectrum of my prospective 
responsibilities. A few that come to mind are:
    Addressing the continued aging of the force structure and defining 
an executable long-term modernization program to support Secretary 
Rumsfeld's strategic vision.
    Arresting the forecasted growth of Operation & Support costs.
    Improving the quality of the acquisition workforce and implementing 
programs to maintain a viable workforce in the face of significant 
predicted losses over the next decade.
    Monitor and improve, where possible, the health of the Defense 
industrial base.
                    major weapon system acquisition
    Question. Secretary Rumsfeld testified at his confirmation hearing 
that the cycle time for major acquisition programs conducted over the 
past several decades averages between 8 and 9 years. Others have stated 
that the cycle time may be as long as 15 to 20 years. The Secretary 
stated that this cycle time is not sufficiently responsive to urgent 
new challenges and rapidly emerging technological developments.
    What specific steps could the Department of Defense take to reduce 
cycle time for major acquisition programs?
    Answer. There is no doubt the Department must continually work to 
deliver advanced technology to the warfighter faster. It seems to me 
the acquisition cycle time can be reduced by: (1) rapid acquisition 
with demonstrated technology, (2) time-phased requirements and 
evolutionary development, and (3) integrated test and evaluation.
    In addition, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics has established specific goals for the 
organization and will look to metrics to help him assess progress 
toward achieving those goals. I think using metrics as tools to assist 
senior leadership and program managers in reducing cycle time is a good 
approach for the Department.
    Question. Do you believe that incremental or phased acquisition 
approaches could help address this problem?
    Answer. I believe evolutionary acquisition is a way to help address 
the problem. Early involvement of the test community in the 
requirements process and design of an integrated test strategy seems to 
me to be important also.
    Question. One of the features of the Department's acquisition 
system that is frequently criticized is the extensive ``concurrency'', 
or overlap, between the development and production phases of major 
weapon system acquisition programs.
    Where and under what conditions should concurrency be used in the 
development and production phases of DOD's major weapon system 
acquisition programs?
    Answer. One has to balance the benefit of early acquisition against 
the risks of early failure. Some degree of concurrency may be necessary 
in weapons program execution. Overlapping development and production 
phases ensures that those engineering and management personnel involved 
in the development phase are also available to work the production 
technical issues and design changes. This ensures technical continuity, 
which I believe, results in a better product for the warfighter.
    Question. Do you believe there has been too much concurrency?
    Answer. It is important to maintain a balance on the degree of 
concurrency. With too much overlap, the results of testing 
(particularly operational testing) may not be incorporated in fixing 
and improving the weapon's design prior to a significant commitment to 
production. This results in costly rework for those units already in 
the production pipeline.
    Question. If so, what steps should be taken to reduce such 
concurrency?
    Answer. I feel that each weapons acquisition program needs to be 
evaluated and treated on a case-by-case basis. I believe DOD decision-
makers are aware of the risks associated with too little or too much 
concurrency. Reducing acquisition cycle time or fielding an important 
capability for the warfighter as soon as possible must be balanced with 
the risks associated with too much concurrency.
    Question. Department of Defense Instruction 5000.2, which governs 
the acquisition of major weapon systems, was recently rewritten to 
require that new technologies be demonstrated in a relevant environment 
(preferably an operational environment) before they may be incorporated 
into DOD acquisition programs.
    Are you familiar with the revised version of DOD Instruction 
5000.2, and if so, what are your views on this revision?
    Answer. I am not yet as familiar with the new DOD Instruction as I 
hope to be, if I am confirmed. However, I do think a new, more flexible 
acquisition process has the possibility of giving the Department the 
right kind of policy tool to make the kind of acquisition decisions 
necessary to put advanced technologies into the hands of the 
warfighters faster.
    Question. Do you believe that the process of testing and 
demonstrating new technologies is more efficiently conducted in the 
context of major acquisition programs, or in stand-alone technology 
programs?
    Answer. It's really a matter of timing and context. If you are 
testing a technology for potential broad application across a number of 
existing or emerging systems, then testing within the context of a 
stand-alone technology program is appropriate. If, however, you are at 
the point of applying a technology within the context of a certain 
system, it should be tested in that context.
    Question. Would DOD's major acquisition programs be more successful 
if the Department were to follow the commercial model and mature its 
technologies with research and development funds before they are 
incorporated into product development programs?
    Answer. I believe there should be a clearer separation between 
technology work and systems work.
                          test and evaluation
    Question. The Department has frequently been criticized for failing 
to adequately test its major weapon systems before they go into 
production. In recent years, the Department has given the Director of 
Operational Test and Evaluation increased authority over developmental 
testing.
    Would you agree that a strong, independent Director of Operational 
Test and Evaluation is critical to the success of the Department's 
acquisition programs?
    Answer. First, let me say my understanding is the Department has 
not given the Director of Operational Test and Evaluation any increased 
authority over developmental test and evaluation. My understanding is 
that during a 1999 realignment of functions, the Director, Operational 
Test and Evaluation assumed responsibility for the Major Range and Test 
Facilities Base and budgets for the Central Test and Evaluation 
Investment Program. However, responsibility for developmental test and 
evaluation continues to be an Under Secretary of Defense for 
Acquisition, Technology, and Logistics function.
    I feel that a strong, independent Director of Operational Test and 
Evaluation is critical to ensuring the Department's acquisition 
programs are realistically and adequately tested in their intended 
operational environment. As an independent voice, the Director of 
Operational Test and Evaluation provides operational test and 
evaluation results to the Secretary of Defense, other decision-makers 
in the Department, and Congress before they proceed beyond Low Rate 
Initial Production.
    Question. Do you believe that supervisory authority over 
developmental testing is an appropriate role for the Director of 
Operational Test and Evaluation, or could this role compromise the 
Director's independence?
    Answer. First, as stated in my previous response, my understanding 
is that the Director, Operational Test and Evaluation does not have a 
supervisory position over Developmental Test and Evaluation.
    Developmental test and evaluation and operational test and 
evaluation are separate, yet complementary. Developmental test and 
evaluation is an integral part of system engineering designed to verify 
performance or to discover anomalies; and, through a test-fix-test 
process, assure the system design and mitigate technical risk. 
Operational Test and Evaluation is used to determine a system's 
military effectiveness and suitability for its intended operating 
environment.
    Question. Do we need to take any steps to ensure that developmental 
testing is realistic, and is used for its intended purpose of 
identifying and addressing potential weaknesses in an acquisition 
program at an early stage?
    Answer. I believe that there are several steps that can be taken to 
ensure developmental test and evaluation is realistic and used for its 
intended purpose. Developmental test and evaluation needs to be 
balanced against a schedule that will sufficiently mitigate program 
risk, while also ensuring a high probability of successfully completing 
operational test and evaluation the first time around and fielding 
systems to meet War-fighter requirements.
    Testers should be involved early to ensure an adequate test and 
evaluation program is defined, addressed, and maintained in both 
program budget and schedule. We need to devote sufficient resources to 
conduct well-planned test programs and execute the program properly.
    The Department needs to increase discipline in the developmental 
test and evaluation process by assuring systems have passed their exit 
criteria and demonstrated a fundamental core capability in 
developmental test and evaluation before entering Initial Operational 
Test and Evaluation.
                         acquisition workforce
    Question. There has been considerable pressure to reduce 
acquisition organizations on the basis of absolute numbers. DOD has 
reduced its acquisition workforce approximately 50 percent, from the 
end of fiscal year 1990 to the end of fiscal year 1999, while the 
workload has essentially remained constant, and even increased by some 
measures.
    Are you concerned that reductions to the acquisition workforce will 
have a negative effect on effective program management, and if so, how 
do you plan to address this problem?
    Answer. Yes, I am concerned about the effects of the reductions on 
the acquisition workforce. I believe there are some plans in place 
already within the Department to address issues related to reductions 
in the acquisition workforce.
    Question. As the Department continues to emphasize contracting out 
and competitive sourcing, the skills, training, and experience of the 
acquisition workforce will be critical in effectively managing these 
contracts.
    Does our current acquisition workforce have the quality and 
training to adapt to new acquisition reforms, as well as to the 
increased workload and responsibility for managing privatization 
efforts?
    Answer. With changes related to acquisition reform, plus increased 
workload and a reduced workforce it is important that the current 
acquisition workforce have the necessary training and experience to 
implement the reforms as well as manage the Department's privatization 
efforts.
    Question. What is your view of the recommendations of the 
Acquisition Workforce 2005 Task Force and what role do you expect to 
play in implementing these recommendations?
    Answer. I am not familiar with the specific recommendations of the 
Acquisition Workforce 2005 Task Force but, if confirmed, it is 
certainly an area I will be interested in learning more about in order 
to determine what role I should play.
                         science and technology
    Question. The Strom Thurmond National Defense Authorization Act for 
Fiscal Year 1999 established the goal of increasing the budget for the 
defense science and technology program by at least 2 percent over 
inflation for each of the fiscal years 2000 to 2008. This goal was not 
met in the fiscal year 2000 and fiscal year 2001 budget requests. In 
his speech at the Citadel last year, then-Governor Bush spoke of his 
support for increased research and development spending and a strong 
and stable technology base.
    Do you believe that a substantial increase in the Department's 
science and technology budget is needed?
    Answer. Determining a sufficient level of science and technology 
(S&T) investment is not a precise science, rather I believe it is a 
strategic decision. But, yes, I believe the Department's S&T budget 
needs to be increased consistent with the President's Blueprint and 
balanced with other DOD needs to ensure the technological superiority 
of our armed forces. I feel that revolutionary concepts should be 
emphasized in the S&T budget to provide more dramatic advances in 
capabilities that the President seeks. Our military needs a 
technological edge now more than ever.
    Question. Congress has authorized the Department to give laboratory 
directors direct hiring authority to enable them to compete more 
effectively with the private sector for top scientific and engineering 
talent. To date, the Department has been reluctant to use this 
authority.
    Do you support giving the Department's laboratory directors the 
authority to make direct hires without having to go through a lengthy 
review process, which can take up to 18 months?
    Answer. Yes. Our laboratories are vital for our Nation's 
development of future, essential warfighting capabilities. I am not 
familiar with this particular authority but the whole area of a 
talented and well-trained acquisition workforce, to include laboratory 
staff, where we need to have excellent scientific and engineering 
talent is an area I will be exploring further, if confirmed, in order 
to improve the Department's ability to compete for that talent.
                        logistics transformation
    Question. Over the last 10 years, the Defense Logistics Agency 
(DLA) has placed an increasing emphasis on approaches such as prime 
vendor agreements, virtual prime vendor agreements, and direct vendor 
delivery to streamline the Department's logistics systems for 
commercial items such as medical supplies, clothing and subsistence, 
and common hardware items.
    Do you support commercial practices such as those that rely 
increasingly on the private sector to meet the Department's logistics 
need?
    Answer. I strongly support the use of commercial practices in 
defense logistics, where it makes sense from a warfighter's 
perspective. I think DLA is moving in this direction and I support 
their efforts in this area.
    Question. Do you believe that these types of logistics practices 
can appropriately be expanded to the delivery of non-commercial items, 
such as aircraft spare parts?
    Answer. The challenge here is with defense-unique items, such as 
fighter aircraft parts, which tend to be low volume, high cost items, 
often provided by sole-source manufacturers. I believe DOD should 
continue adopting innovative support methods, while using ``lessons 
learned'' from the test programs to improve future efforts, always 
bearing in mind the very real need to protect the safety of our troops.
                          competitive sourcing
    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform certain activities including 
equipment maintenance and facility operations. Some have supported this 
effort while others have expressed concern that core activities are 
being jeopardized by reducing our reliance on military personnel and 
civilian employees of the Federal Government.
    What approach would you recommend to balance maintaining necessary 
capabilities and outsourcing?
    Answer. I believe each case should be evaluated on its merit. 
Intuitively, it would seem that all appropriate commercial activities 
could be competed.
    Question. Do you believe that public-private competition results in 
significant savings to the Department and, if so, how?
    Answer. I believe the forces of competition should drive 
identification of potential efficiencies regardless of which offer is 
determined to be most beneficial. However, if confirmed, I would like 
to review the analysis and the supporting data before making a final 
decision on this.
    Question. Do you believe that public-private competition is an 
essential prerequisite to the outsourcing of functions currently 
performed by Federal employees?
    Answer. I would think that competition would be the preferred 
option but there again I would like to see the supporting analytical 
data.
    Question. What is your view of the current A-76 process?
    Answer. I am only marginally knowledgeable of the A-76 process, 
but, if confirmed, I intend to become much better informed in this 
area.
    Question. Are there other effective alternatives to achieve the 
benefits of public-private competition?
    Answer. I cannot really respond at this time without reviewing more 
information on this.
                         information technology
    Question. There appears to be potential overlap between the 
responsibilities of the USD(ATL) and the Chief Information Officer 
(currently ASD(C\3\I)) with regards to information technology 
acquisition.
    How do you anticipate sharing responsibilities with the CIO to 
ensure effective acquisition of information technology?
    Answer. I think information technology acquisition is both a high 
priority and a continuing challenge for the Department. The ASD 
(C\3\I), USD (AT&L), and their respective organizations have major 
roles to play. If confirmed, I expect to have a close working 
relationship with the ASD (C\3\I) to ensure that both organizations 
contribute the strengths of the respective organizations to the 
process. From my perspective, I view the CIO as a technical expert in 
information technology and a colleague.
    Question. The effective use of information technology such as 
advanced computing, telecommunications, networking technology and 
software is a vital component in achieving the goal of full spectrum 
dominance as outlined in the Joint Vision 2020. Recently, the 
commercial marketplace has been the source of major innovation in these 
sectors rather than DOD.
    What is your assessment of the Department's ability to rapidly 
assimilate these commercial technologies?
    Answer. The Department is aware of the increasing capability of 
commercial information technologies. I think the Department needs to 
emphasize evolutionary acquisition and time-phased requirements, in 
part, patterned after commercial practices, and to further improve its 
ability to rapidly assimilate commercial technologies to bring their 
benefits to the warfighter.
    Question. Is a growing DOD dependence on commercial information 
technology a positive or negative development?
    Answer. This is probably the province of the CIO, but with the 
growth in commercial technology I believe there are more positives than 
negatives. To be specific, to the extent that relying on commercial 
information technology enables DOD to deploy the latest technologies 
more quickly and at reduced costs, it is positive. When the commercial 
technologies are not sufficiently robust to operate in a military 
environment, and when a required and appropriate DOD in-house 
capability to support and maintain its military forces under unique 
military scenarios is compromised, it is negative. Striking the 
appropriate balance as we exploit commercial information technologies 
will be a continuing challenge.
                      the defense industrial base
    Question. Some have argued that in many categories the current 
industrial base may no longer be able to support the ``winner-take-
all'' competitions of the past.
    How can we obtain the benefits of competition given the current 
limited number of contractors?
    Answer. The number of active competitors in several defense markets 
has declined and, consequently, it has become more challenging to 
ensure effective competition in these sectors. I believe the Department 
of Defense has in place a process to review proposed mergers and 
acquisitions. That process should help to address the concerns related 
to losing the benefits of competition in the marketplace.
    Question. Do you support further consolidation of the defense 
industry?
    Answer. Each proposed new merger or acquisition of the defense 
firms should be considered on a case-by-case basis. The competitiveness 
and financial health of each industrial sector are different and need 
to be considered.
    Question. A November 2000 report by the Defense Science Board on 
the health of the defense industry identified some significant issues 
associated with under-investment and consolidation.
    What is your view of the specific recommendations of the Defense 
Science Board study?
    Answer. I am not familiar with the recommendations of this study 
but would certainly be very interested in learning more about them if 
confirmed. I believe it is imperative that the country retain a robust 
and competitive industrial base.
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. My opinion is that the U.S. defense industry is strong and 
still provides the best products and services to our war-fighters. I 
believe it will continue to provide those products and services in the 
future. It will always need the correct incentives in order to remain a 
stable industrial base for the future.
    Question. One factor in the escalation of support costs in relation 
to weapon system procurement and operations is the maintenance of over 
capacity in the defense industry that is carried as overhead. Some in 
industry contend that under current government accounting policies 
there is little incentive for contractors to reduce the number of 
facilities.
    Should DOD assess providing incentives to further reduce the number 
of facilities or is this best left to market forces?
    Answer. While I think it seems better to let the market forces 
provide the incentives for business decisions of our defense firms, I 
believe that with certain Defense-unique requirements there should be 
options available. I think when needed the Department should consider 
appropriate incentives for rationalizing inefficient operations.
                          foreign acquisition
    Question. In recent years, foreign-owned companies have been 
purchasing a variety of U.S. defense manufacturers.
    What is your position on foreign investment in the U.S. defense 
sector?
    Answer. In general, I favor foreign investment in the U.S. whether 
it be for defense industries or non-defense industries, so long as this 
investment does not pose threats to national security.
    Question. What are your views on the responsibility of the 
Department of Defense to monitor and oversee potential acquisitions of 
U.S. firms by foreign buyers?
    Answer. Since foreign acquisitions of U.S. defense firms could 
directly affect both the reliability of suppliers to the DOD weapons 
acquisition process as well as the transfer of technology under 
development in DOD, I believe that the Department needs to oversee and 
continue to monitor developments in this area, in order to protect our 
national security interests. I realize, of course, that international 
armaments cooperation and, more specifically international investment 
in the industrial base increases the potential security risks inherent 
in the transfer of militarily significant technology. To eliminate such 
risks, all participating nations must ensure that mutually-acceptable, 
adequate control and enforcement mechanisms are in place to eliminate 
the transfer of technology outside the coalition partnership, or even 
into the commercial world.
    Question. What standard should be applied to determine if a foreign 
acquisition threatens national security?
    Answer. I believe the standard should basically be whether the 
company being acquired has a critical technology or process the 
Department of Defense relies on and if that technology or process would 
be lost if the investor decided to close it down.
    Question. What do you plan to do to ensure that the U.S. does not 
lose critical manufacturing capabilities as a result of foreign 
acquisitions?
    Answer. I understand there is a process currently in place by which 
the Department monitors vulnerabilities related to the possible loss of 
manufacturing and Research and Development capabilities and can take 
legal action, if necessary. Broadly, there are two things I think 
should be done regarding this issue. First, in each merger or 
acquisition transaction, one needs a good analysis on what 
vulnerabilities exist for national security in the event of a move 
offshore involving not just manufacturing facilities but R&D facilities 
as well. Second, I believe there is a need for continuing diligence in 
monitoring the defense industrial base in critical technology and 
manufacturing areas to anticipate where vulnerabilities may exist so 
that the Department can take actions to help ensure that future supply 
is reliable.
    Question. What are your plans for strengthening the Defense 
Department's oversight role to ensure that U.S. national security is 
not compromised from future foreign acquisitions within U.S. 
industries?
    Answer. Fundamentally my sense is the Department needs to enforce 
the guidelines that are already in place and make the current process 
work to the benefit of national defense.
    Question. Do you believe that there should be greater cooperation 
and even integration between defense industries in Europe and the U.S.? 
If so how can such cooperation be facilitated?
    Answer. I support greater transatlantic defense industrial 
cooperation. More cooperative endeavors such as transatlantic teaming, 
joint ventures and even mergers and acquisitions can produce beneficial 
synergies, efficient use of limited resources and healthy competition, 
so long as it occurs in a positive and constructive manner. One way to 
encourage more transatlantic industrial cooperation is to bring good, 
well-managed programs to the marketplace.
    I think with respect to integration, it is necessary to evaluate 
each case on its merit.
                         intellectual property
    Question. Many observers have said that one of the major 
disincentives for commercial companies interested in doing business 
with the Department of Defense is the difficulty of protecting their 
intellectual property under a government contract. On January 4, 2001, 
the Pentagon issued guidance to improve the Department's handling of 
intellectual property rights in order to attract commercial entities to 
defense contracts.
    Are you familiar with this guidance and, if so, what are your views 
of this revised policy?
    Answer. No, I am not familiar with this guidance, but I am aware of 
this criticism and the fact that it is perceived as a disincentive. If 
confirmed, my primary approach to this issue would be to ensure that 
any solution would be even-handed.
                         multiyear procurements
    Question. Providing a stable funding profile for defense programs 
is absolutely essential to effective program management and 
performance, for both DOD and the defense industry. One already tested 
means of increasing program funding stability is the use of multiyear 
contracts.
    Please provide your views on multiyear procurements.
    Answer. My sense is that the Department has successfully used 
multiyear procurement in past years to reduce defense system production 
cost. Multiyear procurement is a very useful acquisition strategy when 
the requirement is clear and the program has achieved stability. Where 
these circumstances exist, I will, if confirmed, strongly encourage the 
use of multiyear contracts to reduce the production cost associated 
with weapon systems.
    Question. How will you treat proposals to renegotiate a multiyear 
procurement?
    Answer. If confirmed, with great caution. Multiyear procurement 
will remain an effective tool only if all parties to multiyear 
contracts live up to the long-term commitment they made. Neither 
industry nor Congress will be interested in entering into multiyear 
contracts unless each can rely on the other to follow through as 
planned. This is rarely a problem if the program met the stability 
criteria before the multiyear contract was awarded. That said, we all 
know dramatic changes can and do occur in this business. If 
circumstances change significantly enough to force renegotiation of a 
multiyear contract, I would expect any such recommendation to be fully 
supported by a description of what changed, why the changes necessitate 
renegotiation of the contract, how the benefits of the multiyear 
contract, including reduced cost, will be preserved to the extent 
possible in the renegotiation, and what will be done to preclude 
perturbing the contract in the future. It is definitely something that 
needs to be scrutinized on a case-by-case basis and depends on the 
particular circumstances.
                         small business issues
    Question. For the last two decades, the Department of Defense has 
been subject to statutory goals for contracting with small businesses 
and minority small businesses. More recently, additional goals have 
been added for contracting with women-owned business and businesses 
owned by disabled veterans. A number of programs have been put in place 
to help the Department achieve these goals.
    Do you believe that these goals serve a valid purpose in the 
Department of Defense contracting system?
    Answer. Yes, I believe statutory goals serve to highlight valid 
congressional concerns that the Department of Defense is obligated to 
carryout as efficiently and effectively as possible. However, the sheer 
magnitude of twenty separate statutory goals is undermining the 
Department's ability to credibly carryout those goals. If confirmed, I 
intend to play a proactive role in ensuring that small business firms 
have maximum practicable opportunity to participate in Defense 
procurements.
    Question. Do you support the so-called ``rule of two,'' which 
provides that if two or more small businesses are capable of performing 
a contract, competition will be limited to small business?
    Answer. I support the ``rule of two'' providing their capabilities 
are sufficient to perform the service or provide the required product. 
I believe it is a valid and effective tool in support of the 
Department's efforts to provide increased opportunities for small 
business firms.
    Question. Do you support the Section 8(a) program, under which the 
Department sets aside certain contracts for performance by small 
disadvantaged business?
    Answer. I do. I think it has provided benefits and highlighted 
talents not otherwise recognized.
    Question. Do you support the Department of Defense mentor-protege 
program, under which major defense contracts provide advice and 
assistance to small disadvantaged businesses and women-owned businesses 
seeking to do business with the Department of Defense?
    Answer. I am familiar with this program from my private experience 
and have seen that there is a benefit to expanding the Defense 
industrial base in this manner. By providing incentives to major prime 
contractors the Department is developing a cadre of capable small 
disadvantaged business firms that can support mission requirements. I 
was pleased to see that Congress has recently expanded the program to 
include women-owned small business firms and, if confirmed, will 
strongly support this program.
    Question. Would you recommend the extension of the program?
    Answer. Yes, this program has certainly demonstrated benefits. I 
believe that by developing the small business firms that have the 
requisite capabilities to participate in DOD acquisitions, the 
Department is expanding its domestic small business capabilities as 
well as ensuring a competitive and capable pool of contractors.
    Question. Over the last several years, representatives of the small 
business community have been increasingly critical of the Department of 
Defense for ``bundling'' contracts together into larger contracts that, 
in their view, tend to preclude small businesses from competing. 
Several years ago, Congress enacted a law under which the Department is 
required to conduct market research to determine whether consolidation 
of requirements is necessary and justified before proceeding with a 
bundled contract. The bundled contract is permitted to go forward only 
if the Department determines that the benefits substantially outweigh 
the costs.
    What is your view of contract ``bundling''?
    Answer. I recognize the Department is dealing in an environment 
that requires taking a hard look at how we do business. Our acquisition 
workforce is much smaller than it was a decade ago. As the Department 
strives to create efficiencies, sometimes it is necessary to combine 
contracts or requirements that may have been previously performed by 
small business firms. I think this should be done carefully and with a 
full understanding of the actual benefits to be gained.
    Question. Do you believe that there is a value to having small 
businesses contract directly with the Federal Government, rather than 
being relegated to the role of subcontractors?
    Answer. I believe there is value in both roles. Certainly, my 
experience with the mentoring program confirms the value of having 
small business serve as subcontractors, but there are times when being 
the prime contractor is preferable for both the Department and the 
small business involved. I am convinced small businesses offer the 
Department value at both the prime contractor and subcontractor level.
    Question. Do you believe that the standard adopted by Congress for 
approving bundling is the appropriate one, or would you recommend that 
this standard be modified?
    Answer. I am not familiar with this standard, however, I would 
think that each case should be evaluated on its own merit. If 
confirmed, I certainly would want to look into using metrics to assess 
the impact of policy changes and would support such an approach in this 
area.
                             feeder systems
    Question. For years, the Department of Defense has been unable to 
ensure proper accountability and control over its physical assets, 
proper accounting for the costs of operations, and proper recording and 
reconciling of disbursements. In the view of many, the Department will 
not be able to get its financial house in order until it has identified 
and addressed problems with the so-called ``feeder systems'' that 
provide much of the information used by the Department's finance and 
accounting systems.
    Do you agree that it must be a high priority for the Department of 
Defense to develop systems that can properly account for costs and 
disbursements?
    Answer. I understand that Secretary Rumsfeld has made financial 
management reform and improvements to feeder systems a high DOD 
priority. I agree with the Secretary and, if confirmed, will 
aggressively work to ensure DOD systems properly account for costs and 
disbursements. The Secretary has already taken very positive steps to 
begin such improvement efforts by establishing a Defense Business 
Management Board to oversee business and financial improvements, and I 
will, if confirmed, ensure that my office is actively involved.
    Question. Would you make it a high priority to work with the DOD 
Comptroller, the Chief Information Officer, and the military services 
to ensure that the Department's acquisition systems include appropriate 
management controls and provide reliable data that can be used for both 
acquisition management and financial management purposes?
    Answer. Yes. If confirmed, I intend to work with the DOD 
Comptroller and other DOD organizations to ensure that the Department's 
acquisition systems are modernized and that controls are developed or 
strengthened to ensure reliable information is provided to both 
acquisition and financial management.
                             transformation
    Question. Over the last year, the military departments have 
described or initiated plans to transform so that they will be better 
able to deal with a wide range of anticipated 21st century national 
security challenges.
    What are your views of the transformation initiatives within the 
Department as they are currently understood?
    Answer. I believe that the military departments have taken steps 
that are appropriate in view of the anticipated 21st century national 
security challenges. I would look to the upcoming Quadrennial Defense 
Review and the other Departmental reviews as a mechanism to further 
refine and integrate these individual transformation plans. The 
important point is to be forward looking and not to look to the past.
    Question. Are you concerned that these initiatives appear to be 
``self defined'' by the services without direct participation of the 
Secretary of Defense or the Chairman, Joint Chiefs of Staff?
    Answer. I am not aware of any current problems in this regard. 
While the initial transformation steps by the military departments may 
have lacked broad DOD participation, it is clear Secretary Rumsfeld 
feels much can be done to prepare the Department for the 21st century. 
The Strategic Review and the upcoming Quadrennial Defense Review seem 
to have the full participation of the Office of the Secretary of 
Defense and the Joint Chiefs of Staff as well as the Services. It is my 
understanding that these two efforts will be the basis for the 
Department's future transformation efforts.
    Question. Recognizing that a fundamental change of the military 
services will be expensive and understanding that ``legacy'' 
modernization programs were significantly underfunded before these 
transformation initiatives began, what would you do to ensure that a 
proper balance of resources is maintained between the two efforts?
    Answer. I feel that this will be the most difficult challenge for 
the Department. In my opinion, the Quadrennial Defense Review must 
carefully consider current capabilities and steps that must be taken in 
the near term to maintain a viable war-fighting capacity. In that vein, 
transformation initiatives must be examined on their own merit and 
paced in such a manner that sustainable programs are defined so as not 
to create budgetary imbalances in the future. I believe it is very 
important to recognize America continues to need protection during a 
transformation process and, therefore, judicious support of ``legacy'' 
programs is necessary.
                            cost estimating
    Question. As programs move forward to critical decision points, 
there often seems to be a wide disparity between the cost estimates 
provided by Service analysts and those of the Cost Analysis Improvement 
Group (OSD CAIG).
    How do you intend to handle the issue of projected costs when the 
estimates may widely differ?
    Answer. Under Secretary Aldridge has testified about the 5 
organizational goals he established that directly support the 
objectives of the Secretary of Defense. The first of these goals is to 
Achieve Credibility and Efficiency in the Acquisition and Logistics 
Support Process. A critical element of this goal is the need to 
establish realistic pricing for our acquisition programs.
    Quite often, in the process of estimating program costs, different 
assumptions and methodologies will yield disparate results. If 
confirmed, I believe I would tend to rely on the independent estimate 
the CAIG provided for assessing the Service's projected cost for the 
program. I would want to understand the reasons for differences between 
the Service estimate and the CAIG estimate prior to a decision at a 
Defense Acquisition Board meeting. To that end, I would seek to 
reconcile differences, on a case-by-case basis, if at all possible.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Acquisition, Technology and Logistics?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                         acquisition workforce
    1. Senator Thurmond. Mr. Wynne, I was pleased to see that you 
considered the Quality and Morale of the Acquisition Workforce as one 
of the most serious problems that must be addressed by the Department 
of Defense. What are your personal views on how the Department can best 
resolve this problem?
    Mr. Wynne. Senator, thank you for focusing your concern on this 
critical issue. The problem of deteriorating morale in the Acquisition, 
Technology and Logistics Workforce has developed over time and is the 
result of a decade of downsizing combined with the impact of increased 
operational deployments and associated costs during the 1990s reduced 
the funding available for modernization of systems and infrastructure.
    There are already plans within the Department to address issues 
related to reductions in the workforce. I am looking at a range of 
initiatives encompassing career development, expanded recruiting and 
hiring, and the broad application of the kinds of authorities that are 
working so well in the Acquisition Workforce Personnel Demonstration 
Project. But one of the most important thing we must do is to provide 
leadership at every level. We have to provide vision and direction from 
the top and empower our line and middle managers to lead.

                          acquisition process
    2. Senator Thurmond. Mr. Wynne, based on your board and extensive 
experience in the private sector acquisition process, what commercial 
practices would you consider key toward improving the defense 
acquisition process?
    Mr. Wynne. We need to adopt best commercial practices and become 
more ``commercial friendly.'' By this, I mean we need to integrate 
better with commercial industry so that there are not two methods of 
doing business--one for government and one for commercial. For example, 
I plan to reform government property rules, look at how we manage 
intellectual property and develop creative solutions to implement 
commercial leasing alternatives.

                           live fire testing
    3. Senator Thurmond. Mr. Wynne, what are your views on the 
requirement for Live Fire Testing of our weapons systems?
    Mr. Wynne. Live Fire Testing is an important and integral part of 
the Department's weapon system test and evaluation process, providing 
timely and accurate assessments of system survivability, vulnerability, 
and munitions lethality.
    Live Fire Testing also provides insights into methods of reducing 
the vulnerability and improving the lethality of weapons and weapon 
platforms, assessing battle damage repair capabilities and issues, and 
improving the computer modeling of weapons system lethality and 
vulnerability.
    I believe strongly that Live Fire Testing should be continued.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                         acquisition workforce
    4. Senator Collins. Mr. Wynne, in your response to the advance 
policy questions, you state that you consider one of the most serious 
problems you would face as Deputy Under Secretary of Defense for 
Acquisition and Technology, to be that of revitalizing the quality and 
morale of the acquisition workforce. The Acquisition 2005 Task Force 
Report, Shaping the Civilian Acquisition Workforce of the Future, 
highlights that the Department is on the verge of a crisis of a 
retirement driven brain drain. This report states that more than 50 
percent of DOD's civilian acquisition workforce will be eligible to 
retire by 2003, requiring a surge in recruiting at all levels. Assuming 
you are confirmed, what are some specific actions you would take to 
overcome this problem?
    Mr. Wynne. Thank you, Senator. Actually the timeframe is 2005 
versus 2003 that 50 percent of our acquisition, technology and 
logistics workforce is eligible to retire. I fully support the Task 
Force 2005 initiatives and I will aggressively pursue their 
implementation. Our civilian acquisition, technology and logistics 
workforce is critical to the continued success of the DOD. The 
Department has begun comprehensive human capital planning and is 
enhancing career development and training for the acquisition, 
technology and logistics workforce. We also need to pursue a range of 
workforce shaping and hiring initiatives. In particular, I support 
aggressive recruiting and hiring at all levels. We need to advertise 
the important and challenging work our people do every day in order to 
attract top talent as well as make it easier for people to transfer 
into government from the private sector. We also need to become more 
competitive with industry in recruiting because timing and ease of 
hiring is critical particularly in our initial offers. We need a 
broader range of intern and exchange programs and authorities to speed 
the introduction of private sector best practices into our operations 
wherever appropriate.

                           spiral acquisition
    5. Senator Collins. Mr. Wynne, in the responses to the advanced 
questions, you state that you will attempt to reduce cycle time for 
major acquisition programs by introducing the concept of ``time-phased 
requirements and evolutionary development.'' Is this concept synonymous 
with the concept that Mr. Pete Aldridge, Under Secretary for Defense 
for Acquisition and Technology, has commonly referred to as ``spiral 
acquisition''? Would you elaborate on what the perceived pros and cons 
are to this acquisition approach?
    Mr. Wynne. Yes, ``time-phased requirements and evolutionary 
development'' are synonymous with ``spiral acquisition.'' ``Time-phased 
requirements'' refers to the establishment of ``blocks'' of military 
capabilities that are required to be fielded incrementally. 
``Evolutionary development'' is the actual maturation of the needed 
technologies over time, with the focus on phasing in the required 
technologies on a more achievable basis. Together, these concepts are 
the foundation of ``spiral acquisition'' or ``spiral development.''
    Spiral development calls for using available and relatively more 
mature technologies to produce weapons systems that may meet many, but 
not necessarily all, of the system's operational requirements when they 
first are deployed--and then for developing and incorporating upgrades 
to those systems later when the necessary technologies are available. 
The series of upgrades represent the ``spirals'' that provide for 
increasing capabilities over time.
    The revised DOD 5000-series documents that govern the DOD 
acquisition system specifically embody this system as a way to reduce 
acquisition cycle times from Science and Technology activities through 
production of weapon systems. This new acquisition philosophy and 
process provides expanded opportunities to insert mature technologies 
more quickly into weapon systems at various phases in the acquisition 
cycle. The new process requires more involvement and collaboration 
between the S&T and acquisition communities by requiring an agreement 
on the technology maturity level before insertion into the weapon 
system. The new process also emphasizes earlier risk reduction and 
demonstration of key technologies before they are inserted into a 
weapon system and before the formal beginning of the acquisition 
program. By using the more mature and available technologies during the 
first phases of a program, we hope to avoid the cost growth and 
schedule delays that have been caused in the past by trying to satisfy 
every operational requirement at first fielding by using much riskier, 
much more immature technologies.
    In addition to emphasizing earlier risk reduction, the new process 
also permits programs to proceed more quickly through the acquisition 
cycle by allowing them to enter later in the cycle if their 
technologies are more mature. For example, a program no longer must 
begin with a Concept Exploration phase and proceed serially through all 
the later acquisition phases. If a program embodies more mature 
technologies and concepts, it may be able to skip earlier program 
phases and enter the acquisition process in the late System Development 
and Demonstration phase or even in the Production and Deployment phase.
    As part of this new acquisition model, we also have streamlined the 
Defense Acquisition Board decision process to eliminate unnecessary 
meetings, and we have established a comprehensive set of metrics to 
monitor the cycle time, cost growth, and other aspects of acquisition 
program performance so we can more easily monitor program status and, 
thus, more quickly address emerging problems before they seriously 
threaten program schedules.
    A principal benefit of this approach is that its emphasis on 
earlier technology maturation and demonstration, more achievable 
development objectives, and flexibility in the acquisition cycle has 
the prospect for avoiding cost growth and schedule delays, thus 
potentially delivering more advanced capabilities into the hands of the 
warfighters sooner. A principal challenge of this approach is leading, 
educating, and training the acquisition community, both at the senior 
and working levels, so that it may best take advantage of the this new 
system to accomplish these objectives as soon as possible.

                         science and technology
    6. Senator Collins. Mr. Wynne, Mr. Pete Aldridge, Under Secretary 
for Defense for Acquisition and Technology, during recent testimony to 
the Emerging Threats and Capabilities Subcommittee, stated that the 
Department needs to invest in its future through Defense Science and 
Technology initiatives. Further, he suggested that if you evaluate the 
science and technology investments as a percentage of the budget, that 
the right ratio of the budget which should be invested in science and 
technology would be approximately 3 percent. What are your thoughts on 
this issue?
    Mr. Wynne. Determining a sufficient level of Science and Technology 
(S&T) investment is not a precise science, rather I believe it is a 
strategic decision. It has always been the Department's goal to fund 
S&T at a level adequate to ensure the technological superiority of our 
armed forces. A strong S&T program is required to provide options for 
responding to a full range of military challenges both today, and into 
the uncertain future. The Department's investment in S&T develops the 
technology foundation necessary for our transformation and 
modernization effort, and fosters the development of ``leap ahead'' 
technologies that produce revolutionary capabilities. DOD must continue 
to invest broadly in defense-relevant technologies because it is not 
possible to predict in which areas the next breakthroughs will occur. 
It is the Department's objective to grow the S&T budget to be 3 percent 
of the total DOD top-line budget as soon as possible. This goal is 
consistent with the industrial model of investing 3 percent of a 
corporation's budget in research. However, we also need to ensure that 
the funding levels of the various components in the Department's total 
budget are balanced based on our assessment of the most urgent 
requirements at any given time.

                           contract bundling
    7. Senator Collins. Mr. Wynne, you refer briefly to your view of 
contract ``bundling'' in the response to your advanced questions. 
Recently, I attended an event for small to mid-size businesses at which 
the participants inquired as to what the Department's current defense 
policy is on bundling, and further highlighted their concern with this 
concept and its impact on growing small and mid-size companies trying 
to establish business relationships with the Department. First, can you 
comment on the Department's current policy on bundling? Second, what do 
you believe the Department can do to ensure that small and mid-size 
businesses have adequate opportunities to compete for DOD contracts?
    Mr. Wynne. The Department's policy is to comply with the applicable 
statutes and the Federal Acquisition Regulation concerning contract 
bundling. The FAR recognizes that bundling may be justified when there 
are measurably substantial benefits. The Department is preparing to 
issue a guidebook to assist acquisition planners in performing quality 
benefit analyses that are critical to the determination as to whether 
or not bundling is justified.
    The Small Business Program Reinvention was one of the first 
initiatives of Under Secretary of Defense for Acquisition, Technology, 
and Logistics, Mr. Pete Aldridge. This policy emphasizes the importance 
of senior management support for the Program and assigns accountability 
at the highest levels within DOD for small business program 
accomplishments. Providing for this level of program accountability is 
a strong measure toward ensuring that small businesses are provided the 
maximum practicable opportunities to compete for Defense requirements.
                                 ______
                                 
    [The nomination reference of Michael W. Wynne follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     June 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael W. Wynne, of Florida, to be Deputy Under Secretary of 
Defense for Acquisition and Technology, vice David R. Oliver.
                                 ______
                                 
    [The biographical sketch of Michael W. Wynne, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Michael W. Wynne

    Michael W. Wynne is currently serving as Chairman and Chief 
Executive Officer for the IXATA group (IXTA), a position he 
took on in December of 2000. IXATA is an Internet Application 
Service Provider in the information space of the travel 
industry. He is also currently serving as Chairman of Extended 
Reach Logistics (www.e-RL.com), an Internet start-up aspiring 
to sell spares and repair kits to the military worldwide. He 
spent most of his career in the world of defense, both in the 
Air Force, and with Industry, following graduation from the 
United States Military Academy at West Point.
    He retired as Senior Vice President from General Dynamics 
(GD), where his role was in International Development and 
Strategy. He spent 23 years with General Dynamics in various 
senior positions with the Aircraft (F-16's), Main Battle Tanks 
(M1A2), and Space Launch Vehicles (Atlas and Centaur). As the 
President of the Space Division, he facilitated the design of 
four Rockets in 4 years, introduced them commercially and set 
them on a course to launch over 50 straight satellites 
successfully. In Tanks, he initiated multi-year procurement in 
the Army and sold both vehicles and manufacturing facilities 
around the world. While in the F-16, he was the lead negotiator 
for the then ``deal of the century'' for the U.S./European co-
production of the initial 998 airplanes.
    In between working with GD, he spent 3 years with Lockheed 
Martin (LM, having sold the Space Systems division to then 
Martin Marietta He successfully moved the division from San 
Diego to Denver and integrated it into the Astronautics 
Company. He became the General Manager of the Space Launch 
Systems segment, combining the Titan with the Atlas Launch 
vehicles. During this period, he orchestrated the first, and 
only, purchase, following design, of a Russian propulsion 
system (RD-180) for U.S. Rockets (Atlas). The resulting vehicle 
will be in the U.S. inventory for years to come.
    Prior to joining industry, Mike served in the Air Force for 
7 years, ending as a Captain and Assistant Professor of 
Astronautics at the U.S. Air Force Academy teaching Control 
Theory and Fire Control Techniques. While there he was awarded 
the Unit Citation Award for being one of the team of designers 
of the AC-130E Gunship.
    In addition to his undergraduate degree, he also holds a 
Masters in Electrical Engineering from the Air Force Institute 
of Technology and a Masters in Business from the University of 
Colorado. He has attended short courses at Northwestern 
University (Business) and Harvard Business School (PMD2). He is 
a Fellow in the National Contracts Management Association, and 
has been a past President of the Association of the United 
States Army, Detroit Chapter and the Michigan Chapter of the 
American Defense Preparedness Association.
    He was born in Florida, and currently resides in McLean, 
Virginia, with his wife Barbara. They have four daughters.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael W. 
Wynne in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Walter Wynne.

    2. Position to which nominated:
    Deputy Under Secretary of Defense (Acquisition and Technology).

    3. Date of nomination:
    June 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 4, 1944; Clearwater, FL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara H. Wynne (Maiden Name--Hill).

    7. Names and ages of children:
    Lisa W. Henkhaus, 34.
    Collene W. Finn, 33.
    Karen W. Murphy, 30.
    Laura Wynne, 25.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    University of Colorado, MBA--9/1973--6/1975.
    Air Force Institute of Technology, Wright Patterson Air Force Base, 
MSEE--7/1968-6/1970.
    United States Military Academy, BSGE--7/1962-6/1966.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    12/2000--Present, IXATA Group, 8989 Rio San Diego Dr., San Diego CA 
92109. Chairman/CEO.
    7/1997--10/1999, General Dynamics,  3190 Fairview Park Dr., Falls 
Church VA 22042, Senior Vice President.
    5/1994-3/1997, Lockheed Martin Astronautics, Deer Creek Canyon 
Drive, Denver, CO 80145, General Manager--Space Launch System.
    3/1991-5/1994, General Dynamics Space Systems, 5001 Kearney Villa 
Rd, San Diego, CA 92123 President.
    4/1982-3/1991, General Dynamics Land Systems, 38500 Mound Rd, 
Sterling Heights MI 48310, Vice-President--Business Development.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Officer, United States Air Force, 6/1966-6/1973, Regular Reserve 
Officer, 6/1973-9/1975, Rank achieved Captain.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    (1) WC Factors, LLC, Managing Member (I recently registered this to 
finance Extended Reach Logistics receivables. It has never operated.)
    (2) Extended Reach Logistics, Inc. Chairman.
    (3) IXATA Group, Chairman and CEO.
    (4) NextGen Fund II, LLC, NextGen SBS Fund II, Limited Partner, 
Member of the Executive Committee.
    (5) Rothstein Asset Management, LP, Limited Partner.
    (6) Fiduciary Partners Fund, LP, Limited Partner.
    (7) General Dynamics Corporation, Senior Vice President.
    (8) Lockheed Martin Corporation, Astronautics; General Manager--
Space Launch Systems.
    (9) Association of the United States Army, Detroit Chapter, 
President--mid 1980s.
    (10) Michigan Chapter, American Defense Preparedness Association, 
President--mid 1980s.
    (11) National Contracts Management Association, Fellow--Since the 
early 1980s.
    (12) National Contracts Management Association, Detroit Chapter, 
President--Early 1980s.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican National Committee, Democratic National Committee, 
Clinton-Gore campaign, Senator Feinstein, Senator Allen, Senator Leahy, 
Congressman Hunter, Bush Campaign, Texas Republican Party, Virginia 
Republican Party, Congressman Cunningham, Senator Snowe, Lazio 
Campaign.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    National Contract Management Association, Fellow, Military Medals: 
Unit Excellence (AC130 Gunship Development).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    (1) AIAA/IEEE proceedings, 1970--Multiple reentry vehicles.
    (2) AIAA proceedings, 1972--Optimal control; sightline autopilot.
    (3) Society for Parametric Estimating, 1978, 2d quarter--Impact of 
Labor Strike on Learning Curves for Manufacturing.
    (4) Army Material Command, RD&A Magazine, May 1985--Benefits of the 
M1A1 multi-year for the Army.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Michael W. Wynne.
    This 13th day of June 2001.

    [The nomination of Michael W. Wynne was reported to the 
Senate by Chairman Levin on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 12, 2001.]


NOMINATIONS OF DIONEL M. AVILES TO BE ASSISTANT SECRETARY OF THE NAVY, 
    FINANCIAL MANAGEMENT AND COMPTROLLER; REGINALD JUDE BROWN TO BE 
  ASSISTANT SECRETARY OF THE ARMY, MANPOWER AND RESERVE AFFAIRS; DR. 
 STEVEN A. CAMBONE TO BE DEPUTY UNDER SECRETARY OF DEFENSE FOR POLICY; 
    MICHAEL MONTELONGO TO BE ASSISTANT SECRETARY FOR THE AIR FORCE, 
  FINANCIAL MANAGEMENT AND COMPTROLLER; AND JOHN J. YOUNG, JR., TO BE 
      ASSISTANT SECRETARY OF THE NAVY (RESEARCH, DEVELOPMENT, AND 
                              ACQUISITION)

                              ----------                              


                        WEDNESDAY, JUNE 27, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:12 a.m., in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Warner, 
and Inhofe.
    Other Senators present: Senators Stevens and Inouye.
    Committee staff members present: David S. Lyles, staff 
director; Madelyn R. Creedon, counsel; Richard D. DeBobes, 
counsel; Gerald J. Leeling, counsel; and Peter K. Levine, 
general counsel.
    Professional staff members present: Daniel J. Cox, Jr., 
Richard W. Fieldhouse, and Creighton Greene.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Judith A. Ansley, deputy staff 
director for the minority; L. David Cherington, minority 
counsel; Ann M. Mittermeyer, minority counsel; Suzanne K.L. 
Ross, research assistant; Richard F. Walsh, minority counsel; 
and Scott Stucky, minority counsel.
    Professional staff members present: Charles W. Alsup, 
Edward H. Edens IV, Brian R. Green, William C. Greenwalt, Gary 
M. Hall, Carolyn M. Hanna, Mary Alice A. Hayward, Ambrose R. 
Hock, George W. Lauffer, Patricia L. Lewis, and Thomas L. 
Mackenzie.
    Staff assistants present: Gabriella Eisen, Kristi M. 
Freddo, and Michele A. Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Barry Gene (B.G.) Wright, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Brady King, assistant to Senator Dayton; John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; 
Kristine Fauser, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee will come to order.
    The committee meets today to consider the nominations of 
Dionel Aviles to be Assistant Secretary of the Navy, Financial 
Management and Comptroller; Reginald Jude Brown to be Assistant 
Secretary of the Army, Manpower and Reserve Affairs; Dr. Steven 
A. Cambone to be Deputy Under Secretary of Defense for Policy; 
Michael Montelongo to be Assistant Secretary of the Air Force, 
Financial Management and Comptroller; and John Young to be 
Assistant Secretary of the Navy, Research, Development, and 
Acquisition.
    On behalf of the entire committee, I would like to welcome 
you, your families, and friends to the Armed Services 
Committee. We have a tradition in the committee of asking our 
nominees to introduce their family members who are present. Let 
me call on each of you to do that now. Then in a moment or two, 
we are going to go to the introductions.
    So first, Mr. Montelongo, why do we not start with you?
    Mr. Montelongo. Thank you, Mr. Chairman. It is my pleasure 
to introduce my bride, Debbie, and our daughter, Amanda.
    Chairman Levin. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. It is my pleasure to 
introduce my wife, Emmy.
    Chairman Levin. Dr. Cambone.
    Dr. Cambone. Mr. Chairman, thank you very much. I would 
like to introduce my wife, Margaret, and my niece, Caitlin.
    Chairman Levin. Mr. Aviles.
    Mr. Aviles. Thank you, Mr. Chairman. I would like to 
introduce my wife, Kimberly; my son, Thomas; and my mother-in-
law, Arlene Chandler, and my father-in-law, Bill Corbin.
    Chairman Levin. Mr. Young.
    Mr. Young. Mr. Chairman, thank you. I would like to 
introduce my wife, Barbara; my son, Nathan; my son, William; 
and my daughter, Kathryn.
    Chairman Levin. Kathryn is the name of your daughter? I 
have heard she has two great older brothers, who really, really 
love her. Someday, she will know how lucky she is. [Laughter.]
    Now, that is the truth. Sometimes I joke about that, but I 
have heard in this family those two brothers really take great 
care of their sister.
    Let me thank all the family members in advance for the 
sacrifices that they will be making so that you can serve. Each 
of you before us today have a record of public service, so your 
families at least have some idea as to what they are in for. 
Again we thank them in advance for their willingness to have 
you serve again.
    John Young and Dionel Aviles are well known to committee 
members for their dedicated service as congressional staffers 
over the last decade. Mr. Young has served since 1993 as a 
professional staff member for the Defense Subcommittee of the 
Senate Appropriations Committee.
    Mr. Aviles has served since 1996 as a professional staff 
member for the House Armed Services Committee.
    The experience, skills, thoughtfulness, and dedication that 
they have brought to their jobs will be missed on Capitol Hill, 
but will surely serve them well as they take on new challenges 
in the executive branch.
    Mr. Brown, Dr. Cambone, and Mr. Montelongo have also had 
important experiences and bring great skills to their new jobs.
    Mr. Brown has previously served as Assistant Administrator 
at the United States Agency for International Development.
    Dr. Cambone has served as Staff Director for the Space 
Commission and the Ballistic Missile Threat Commission and 
currently serves as a Special Assistant to the Secretary of 
Defense.
    Mr. Montelongo has served as a Special Assistant to the 
Army Chief of Staff and is a Congressional Fellow.
    Each is well-qualified for the important position to which 
he has been nominated.
    The committee, of course, has a responsibility to get a 
clear record of our nominees' views on national security issues 
that they and this Nation face, and we look forward to their 
testimony.
    Senator Warner.
    Senator Warner. Mr. Chairman, I thought out of deference to 
our two colleagues that I would give my few remarks following 
the introduction by our distinguished colleagues.
    Chairman Levin. Terrific. Thank you very much.
    Senator Warner. I really want to hear what they got in 
return for releasing Young. They got a deal out of this 
somewhere. [Laughter.]
    These two parents structured something to lose this 
valuable member.
    Chairman Levin. In other words, I think Senator Warner is 
suggesting that you stay for questioning as well. [Laughter.]
    Our nominees have all responded to the committee's pre-
hearing policy questions and our standard questionnaire. 
Without objection, these responses will be made a part of the 
record.
    The committee has also received the required paperwork on 
each of the nominees, and we will be reviewing that paperwork 
to make sure that it is in accordance with our requirements.
    The first round of questions will be limited to 6 minutes 
for each Senator on the basis of the early bird rule. But 
before we begin our first round of questions and ask our 
introducers to make their comments, we would ask several 
standard questions of each of the nominees. In your response to 
the advanced policy questions you have agreed to appear as a 
witness before the congressional committees when called, and to 
ensure that briefings, testimony, and other communications are 
provided to Congress, so we will not repeat those questions.
    Here are the questions that we will ask you to respond to: 
Have each of you adhered to applicable laws and regulations 
governing conflict of interest?
    Mr. Aviles. Yes, sir.
    Mr. Brown. Yes, sir.
    Dr. Cambone. Yes, sir.
    Mr. Montelongo. Yes, sir.
    Mr. Young. Yes, sir.
    Chairman Levin. Have any of you assumed any duties or 
undertaken any actions which would appear to presume the 
outcome of the confirmation process?
    Mr. Aviles. No, sir.
    Mr. Brown. No, sir.
    Dr. Cambone. No, sir.
    Mr. Montelongo. No, sir.
    Mr. Young. No, Mr. Chairman.
    Chairman Levin. Have you done anything which presumes 
confirmation?
    Mr. Montelongo. No, sir.
    Mr. Young. No, sir.
    Dr. Cambone. No, sir.
    Mr. Brown. No, Mr. Chairman.
    Mr. Aviles. No, sir.
    Chairman Levin. Will you ensure that the Department 
complies with deadlines established for requested 
communications including prepared testimony and questions for 
the record and hearings?
    Mr. Aviles. Yes, sir.
    Mr. Brown. Yes, sir.
    Dr. Cambone. Yes, sir.
    Mr. Montelongo. Yes, sir.
    Mr. Young. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Aviles. Yes, sir.
    Mr. Brown. Yes, sir.
    Dr. Cambone. Yes, sir.
    Mr. Montelongo. Yes, sir.
    Mr. Young. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Mr. Aviles. Yes, sir.
    Mr. Brown. Yes, sir.
    Dr. Cambone. Yes, sir.
    Mr. Montelongo. Yes, sir.
    Mr. Young. Yes, sir.
    Chairman Levin. I think what we will do at this point is 
ask our colleagues to make their introductions.
    Senator Inouye, would you start please?

   STATEMENT OF HON. DANIEL INOUYE, U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman and members of the committee, 
I am pleased to be here with my co-chairman of the Senate 
Appropriations Subcommittee on Defense to introduce Mr. John 
Young, the President's nominee to be the Assistant Secretary of 
the Navy for Research, Development, and Acquisition.
    Mr. Young came to the Appropriations Committee 10 years ago 
as a young 28-year-old American Institute of Aeronautics and 
Astronautics fellow from Sandia National Labs. At that point, 
10 years ago, he already had an impressive resume.
    He received an engineering degree from Georgia Tech, a 
masters degree from Stanford. He had worked for General 
Dynamics in the F-16 program; for Rockwell on tactical 
missiles. At Sandia, he had worked on the hypersonic reentry 
vehicle technology.
    He claims that he came to us in Congress to learn about 
Congress and the defense budget process. He came for 12 months 
and we succeeded in keeping him for 10 years.
    During his initial year, the members of the subcommittee 
and their staff recognized John's talent, his ability to 
analyze complex problems, and offer current solutions. As the 
record indicates, his recommendations to the subcommittee saved 
the taxpayers hundreds of millions of dollars. At the same 
time, his ideas helped the military further its agenda. That is 
why, Mr. Chairman, we kept him for 10 years.
    Reluctantly, we recognize now that the administration has 
discovered our secret weapon and they have pressed him into 
their service. [Laughter.]
    All kidding aside, John Young will be a great asset to the 
Department of the Navy and the administration. His long 
experience in acquisition matters for Congress and the private 
sector make him uniquely equipped to become the next Assistant 
Secretary for the Navy.
    I am pleased to join Senator Stevens in introducing John 
Young to you formally, even though I know that many of you have 
gotten to know him over the past decade.
    Mr. Chairman and members of the committee, I have never met 
anyone who has had anything but the greatest respect for his 
talent, his knowledge, and his pleasant demeanor. I recommend 
him to you without equivocation.
    Chairman Levin. Senator Inouye, thank you very much.
    Senator Stevens.

    STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman and Senator Warner, it is a 
pleasure to join my chairman in introducing to you John Young.
    Following Senator Inouye's comments you are well aware of 
his academic, engineering, and public service accomplishments. 
His resume is an extremely outstanding one. He is immensely 
qualified for the position that the President has asked him to 
fill.
    I just want to take a moment to tell you how lucky the Navy 
is to have stolen John from our committee staff. He has 
demonstrated an extraordinary skill in balancing the priorities 
of the military and the interests of Congress, and the true 
capability of technology to be harnessed to serve our national 
defense.
    It is not enough to be certain a system is right; it must 
be the right solution to a challenge that we face. The real 
talent lies in determining whether that solution is, in fact, 
ready to be produced, how it is to be produced, and when it is 
to be produced.
    Any candidate to serve as Assistant Secretary to the Navy 
for Research, Development, and Acquisition needs these skills, 
and John possesses all of them in abundance.
    Quite simply, John has served as one of the most trusted 
members of our committee's staff for more than a decade. He 
worked for each of us and for both of us the whole time.
    I am sorry to see John depart. He has been a grand fishing 
companion, if nothing else. [Laughter.]
    I am not going to tell you, frankly, unless you put me in 
chains what we really got for him, a few bases here and there; 
a little reopening of some that were closed inadvertently by a 
former Secretary of Navy. [Laughter.]
    But this is the right assignment at the right time. I know 
that John appreciates as well that in being here it is a sign 
that the two of us will be looking over his shoulder as he 
wrestles with the challenges this administration will give him 
because we are going to continue to rely upon him to advise 
your committee and ours.
    There is no one whose judgment I would trust more to serve 
in this position than John Young. It is a pleasure to be with 
you and a pleasure to work with him. We wish him the very best 
in his new assignment.
    Senator Warner. Mr. Chairman, if I might observe, the 
committee sees the presence of Steve Cortese, Sid Ashworth, 
Charlie Houy, and Tom Hawkins of the staff who have come to 
give backup support to the distinguished two ``co-chairmen,'' 
as they refer to themselves.
    Senator Stevens. We have really come just to tell you we 
are ready to keep him if you do not do this very quickly. 
[Laughter.]
    Chairman Levin. Well, I tell you, Senators Inouye and 
Stevens, we can accommodate your desire to keep him quite 
easily. There are ways for this committee to meet those needs, 
not very subtle ways, but there are ways that we can do it. 
[Laughter.]
    Senator Stevens. If this committee thinks that our needs 
are greater than the President's, we are at your service, sir. 
[Laughter.]
    Chairman Levin. He has been trained at the feet of a couple 
of masters on the Appropriations Committee, so we know how well 
he will take that service to the executive branch.
    Now, Congressman Reyes, you----
    Senator Warner. I would like to say a few remarks here. I 
had reserved my time----
    Chairman Levin. Sure. Oh, no--we have a Congressman here.
    Senator Warner. Oh, yes, of course, OK.
    Chairman Levin. Thank you.

  STATEMENT OF HON. SILVESTRE REYES, U.S. REPRESENTATIVE FROM 
                             TEXAS

    Mr. Reyes. Yes, thank you, Mr. Chairman and members of the 
committee.
    It is my privilege and pleasure to be here with you this 
morning to introduce a gentleman that we are very proud of, 
coming from El Paso in general and from Fort Bliss, the Army 
Air Defense Center, in particular.
    I am also here on behalf of our colleague, Senator Kay 
Bailey Hutchison, who was unable to be here, but would have 
liked to be here as well. Also representing Mr. and Ms. Jerry 
Tennison are the nominee's in-laws, residents of my district.
    This morning, it is my sincere pleasure to introduce to you 
the nominee for Under Secretary of the Air Force for Financial 
Management and Comptroller, Mr. Michael Montelongo. He is a 
graduate of the United States Military Academy and a career 
Army officer, having retired as a Lieutenant Colonel after 
serving in the Army Air Defense Artillery.
    He is coming to us, to public service, from Cap Gemini 
Ernst and Young, where he served as a sales executive and 
consulting manager. He also served as a Congressional Fellow in 
the office of Senator Kay Bailey Hutchison in the 104th 
Congress, and in the past has also served as a fellow in the 
Pentagon.
    It is my privilege and pleasure to also acknowledge his 
wife Debbie from El Paso and his daughter Amanda, who are with 
him here today.
    Mr. Chairman and the members of the committee, I know that 
Michael Montelongo will do an outstanding job for our country 
in his new position.
    Thank you very much for the opportunity.
    Chairman Levin. Congressman Reyes, thank you very much for 
that introduction. I know how appreciative Mr. Montelongo is as 
well. Thank you.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    Mr. Chairman, I commend you again in your skills for having 
these very important hearings, the Constitutional function of 
the United States Senate, which is to give advise and consent 
with regard to nominees of the President of the United States.
    The President, again, is to be commended for recruiting 
such a fine, outstanding, and well-qualified group of 
individuals to come and, in several instances, to re-enter 
public service. They take on the very heavy responsibilities 
associated with protecting this Nation and making us secure, 
and not only here at home, and I emphasize at home because the 
President in his Citadel speech brought to the attention of the 
American people that threats here at home now unfortunately are 
mounting, but also preserving freedom abroad for ourselves and 
our allies.
    I commend you and I thank you, Mr. Chairman, for your 
reference to the families. Indeed, they are a vital part of 
this team in the Department of Defense.
    I was privileged to serve once and I remember so well my 
children were almost the sizes of those children right there at 
that time, and I have a wonderful picture of those toddlers 
gathered around me when I took on those responsibilities a 
quarter of a century ago.
    I hasten to tell the families to get those husbands home at 
a reasonable hour in the evening. Any decision made after 7 
o'clock in the Pentagon is reversed in the morning. [Laughter.]
    So come on home and you will do better in your jobs after 
rejoining your wonderful families and getting the sustenance 
and the support that they can provide you.
    Mr. Chairman and members of the committee, I would like to 
make some special comments with reference to Reginald Brown. He 
proudly claims Virginia as his State since 1986.
    He is a West Point graduate who has served in the infantry 
from 1961 through 1971. He has an impressive history of 
government and business accomplishments including service as 
Assistant Administrator at the U.S. Agency for International 
Development from 1989 to 1993.
    I believe at that time I introduced you before the Senate, 
but we will just dig up that old record and make it count for 
this one. I thank you and your family for once again responding 
to the public life.
    Dr. Cambone, others have covered extensively your 
exceedingly impressive record of accomplishments for a 
relatively young man who has achieved so much in such a short 
period of time. You will be a point man for the President's 
policies and initiatives and particularly with missile defense 
and other strategic programs.
    You are eminently qualified in my judgment, Doctor, to 
handle those debates before Congress and in the public forum. I 
think you want to anxiously accept that challenge.
    Mr. Young, you have received so much praise, so I will 
remain quiet and just let it rest and I will put into the 
record my comments with respect to you.
    To the others here, the Chairman also covered extensively 
your background, so I will place my statement in the record. 
But I, again, join the Chair and the members of this committee 
in thanking you for offering yourselves to public service.
    Thank you, Mr. Chairman.
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in extending a warm welcome to our nominees and their 
families. I thank you all for your willingness to serve.
    Dr. Stephen A. Cambone is currently serving as the Special 
Assistant to the Secretary and Deputy Secretary of Defense and has 
compiled a distinguished career in government and academia. He served 
as the Director of Research at the Institute for National Strategic 
Studies of the National Defense University from August 1998 to July 
2000. Prior to that he served as the Staff Director for the Commission 
to Assess United States National Security Space Management and 
Organization from July 2000 to January 2001. From January 1998 to July 
1998, Dr. Cambone was the Staff Director for the Commission to Assess 
the Ballistic Missile Threat to the United States. He previously served 
in the Office of the Secretary of Defense from 1990 to 1993 as Director 
for Strategic Defense Policy, and he worked in the Office of the 
Director, Los Alamos National Laboratory from 1982 to 1986. Dr. 
Cambone, I congratulate you on your many accomplishments.
    Mr. Young is currently a Professional Staff Member on the Senate 
Appropriations Committee, Subcommittee on Defense, having served there 
since 1993. For 10 years prior to joining our colleagues on the 
Appropriations Committee, Mr. Young was a member of the Technical Staff 
at the Sandia National Labs. He has also worked as an engineer with 
Rockwell International, the BDM Corporation, and General Dynamics. 
Congratulations, Mr. Young, on your nomination.
    Mr. Montelongo is an Army veteran having graduated from the U.S. 
Military Academy in 1977. His active-duty service included assignments 
as a Senior Analyst and Associate Professor at the U.S. Military 
Academy from 1988 to 1991 and as a Special Assistant to the Chief of 
Staff of the Army from 1994 to 1995. He currently works for the firm of 
Ernst & Young in Atlanta, Georgia.
    Mr. Brown also served on active duty in the U.S. Army with the 
infantry after graduating from West Point in 1961. Following his 
military service, he served in various important government positions 
including Director in the Office of Price Monitoring at the Council of 
Wage and Price Stability and Principal Analyst for the Defense Manpower 
Commission. From 1989 to 1993, he was an Assistant Administrator at the 
U.S. Agency for International Development. Thank you for your 
willingness to return to government service.
    Mr. Aviles is currently a Professional Staff Member on the House 
Armed Services Committee with responsibility for defense budget and 
financial management, Navy procurement, and Merchant Marine issues. He 
graduated from the U.S. Naval Academy in 1983, and served as a Surface 
Warfare Officer. Mr. Aviles was an engineer with the Naval Sea Systems 
Command from 1990 to 1991, and an Examiner at the Office of Management 
and Budget from 1991 to 1995. Thank you, Mr. Aviles, for your continued 
willingness to offer public service.
    I am very impressed by the qualifications of these nominees. If 
confirmed, they will be key members of the Secretary's team of senior 
leaders. They have my support.
    Senator Levin.

    Chairman Levin. Thank you. Senator Reed, do you have an 
opening statement?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Mr. Chairman, I do not have a formal opening 
statement. I just want to welcome the nominees.
    I particularly want to welcome Mr. Brown, who was my 
instructor at West Point in the Social Science Department. If I 
am particularly acute today, take credit for it. Otherwise, you 
have no responsibility. [Laughter.]
    To all the gentlemen and the families who have come here 
today to accept this responsibility to serve the Nation, I 
thank you for that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you. Without meaning to pry in any 
way, how good a student was Senator Reed? That good? 
[Laughter.]
    Mr. Brown. A top one.
    Chairman Levin. Well, he is top on this committee, too. 
[Laughter.]
    Senator Reed. I think that is one of those nominees 
conversions----[Laughter.]
    --confirmation conversion, right?
    Chairman Levin. Let the record show that Mr. Brown had his 
thumb up in the air. [Laughter.]
    The record should reflect that Chairman Stump and 
Congressman Spence from the House Armed Services Committee had 
planned to be here to introduce Mr. Aviles, but we had to 
change the starting time of the hearing, and they were not then 
able to make it.
    Senator Warner. We have a hearing before the House this 
morning and they were with us this morning at the Department of 
Defense when we had breakfast with the Secretary and spoke very 
highly of you throughout the meeting. At this point, without 
objection, I submit for the record the opening statement of 
Senator Thurmond.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman:
    Mr. Chairman, I want to welcome and congratulate each of our 
nominees as the Armed Services Committee convenes to consider their 
nominations to the critical positions within the Office of the 
Secretary of Defense and the military services. The fact that they are 
here this morning is a reflection of their accomplishments and the 
potential for them making significant contributions to our Nation, in 
particular to the men and women of our Armed Forces.
    I specifically want to recognize Mr. Aviles and Mr. Young who 
toiled for many years as professional staff members on the House Armed 
Services Committee and the Senate Appropriations Committee. Each will 
provide critical insight of the legislative branch to Secretary 
Rumsfeld's leadership team and hopefully will facilitate the flow of 
information between the Department of Defense and the defense 
committees.
    Mr. Chairman, the Nation is fortunate to have individuals, such as 
our nominees, who are willing to take on the challenges of the offices 
for which they have been nominated. I wish each of them success and a 
speedy confirmation.
    Thank you, Mr. Chairman.

    Chairman Levin. Now we will call out our witnesses for any 
opening remarks that they may wish to make. Let us just go 
right down the table, keep doing it the way we have been doing 
it.
    Mr. Montelongo.

   STATEMENT OF MICHAEL MONTELONGO, NOMINEE TO BE ASSISTANT 
     SECRETARY FOR THE AIR FORCE FINANCIAL MANAGEMENT AND 
                          COMPTROLLER

    Mr. Montelongo. Thank you, Mr. Chairman.
    I am very honored and privileged to appear before this 
committee seeking confirmation as the Assistant Secretary of 
the Air Force for Financial Management. I want to thank the 
President and the Secretary for this very special opportunity 
and privilege to serve the men and women of the United States 
Air Force and the Nation.
    I want to thank the committee members for taking time out 
of their busy schedules to conduct the hearing, and offer a 
very special thank you to Congressman Silvestre Reyes for his 
very kind introduction. I also want to thank everyone who 
helped shepherd me through the nomination and confirmation 
process.
    Finally, I especially want to thank my bride Debbie and our 
daughter Amanda, for their love, prayers, and support, and for 
once again demonstrating that service to the Nation, as it is 
for so many of our servicewomen and men, is a family affair.
    Mr. Chairman, if confirmed, I would seek to address what I 
believe are three issues key to the Air Force financial 
management community: One, restore confidence and reliability 
in financial management systems and the related critical feeder 
systems to achieve auditable financial statements and, more 
importantly, provide the warfighters and decisionmakers with 
informed information.
    In other words, Mr. Chairman, as good stewards of taxpayer 
money, we should do everything possible to ensure that funds 
are executed in the same manner appropriated and that they are 
accurately tracked.
    Two, review and understand the defense strategy and then 
shape the budget to meet Air Force priorities and strategy.
    Three, to plan, program, and budget funds in a responsible 
manner to meet the demands of our changing global and military 
environments.
    Mr. Chairman, if confirmed, I very much look forward to 
working with you and the committee to support and care for the 
men, women, and families who selflessly serve in the United 
States Air Force.
    I look forward to your questions.
    Chairman Levin. Thank you very much.
    Mr. Brown.

   STATEMENT OF REGINALD JUDE BROWN, NOMINEE TO BE ASSISTANT 
      SECRETARY OF THE ARMY, MANPOWER AND RESERVE AFFAIRS

    Mr. Brown. Thank you, Mr. Chairman, Senator Warner, Senator 
Reed, other members of the committee. I feel deeply honored and 
privileged to appear before this committee to seek confirmation 
as Assistant Secretary of the Army.
    I wish to especially thank you, Senator Warner and Senator 
Reed, for your kind remarks.
    I would also like to thank the President, Secretary 
Rumsfeld, and Secretary White for this opportunity.
    I enthusiastically support Secretary White's three-part 
vision for the Army; as you may recall, an Army that will 
attract, develop, and retain America's best young people, while 
providing for their quality of life and well-being; an Army 
that will maintain its readiness; an Army that transforms 
itself to achieve dominance through the full spectrum of future 
military operations.
    I look forward, if confirmed, to working with this 
committee and the Senate in achieving this vision for the Army. 
I look forward to the questions of the committee.
    Thank you very much.
    Chairman Levin. Thank you very much.
    Dr. Cambone.

STATEMENT OF DR. STEVEN A. CAMBONE, NOMINEE TO BE DEPUTY UNDER 
                SECRETARY OF DEFENSE FOR POLICY

    Dr. Cambone. Good morning, Mr. Chairman, Mr. Warner, Mr. 
Reed. It is an honor to appear before this committee seeking 
confirmation as the Deputy Under Secretary of Defense for 
Policy.
    I am grateful to Secretary Rumsfeld for his confidence in 
proposing my name to the President for this post. I am honored 
by the President for his nomination.
    I am looking forward to taking part in this Constitutional 
process by which the Senate gives its advise and consent to the 
President on his nomination. It is a process that is 
characteristic of our democracy and one, as I say, I am looking 
forward to taking a part in.
    If confirmed by the Senate, Mr. Chairman, I will work 
closely with you and other members of this committee to protect 
and defend the United States and its people, to promote the 
national security of the United States, and to assure that we 
and our future generations are peaceful and prosperous.
    Thank you, sir.
    Chairman Levin. Thank you, Dr. Cambone.
    Mr. Aviles.

    STATEMENT OF DIONEL M. AVILES, NOMINEE TO BE ASSISTANT 
  SECRETARY OF THE NAVY, FINANCIAL MANAGEMENT AND COMPTROLLER

    Mr. Aviles. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Warner, Senator Reed, it is my 
distinct honor and personal privilege to appear before you 
today as the nominee for the position of Assistant Secretary of 
the Navy Financial Management and Comptroller.
    With your permission, I would like to dispense with a 
formal statement and just make a few brief remarks.
    I thank President Bush for his nomination, Secretary 
Rumsfeld and Secretary England for their support for my 
nomination to serve the Nation and the Department of the Navy.
    While serving as an examiner at the Office of Management 
and Budget and on the staff of the House Armed Services 
Committee, I have had the opportunity to work with the members 
and staff of this committee and know firsthand of your 
unwavering support for all of our Nation's armed forces. Having 
previously served the Navy both as a naval officer and a 
civilian engineer, I would like to express my personal thanks 
for that support.
    Should I be confirmed, I look forward to working with 
Secretary England, the members and staff of this committee, and 
other Members of Congress to provide the Department of the Navy 
with the tools necessary to ensure the continued maritime 
dominance of our naval forces while improving the quality of 
service for our sailors and marines.
    In closing, Mr. Chairman, if I may be permitted, I would 
like to thank former Chairman Floyd Spence, Chairman Bob Stump, 
and ranking member Ike Skelton of the Committee on Armed 
Services in the House of Representatives for their support. The 
opportunity that they have provided me to serve Congress has 
resulted in some of the most professionally rewarding 
experiences of my life, and I am grateful.
    Lastly, I would like to thank my family, especially my wife 
Kimberly and my son Thomas, without whose loving support I am 
certain that I would not be appearing before you today.
    Thank you, Mr. Chairman. That concludes my remarks.
    Chairman Levin. Thank you very much, Mr. Aviles.
    Mr. Young.

   STATEMENT OF JOHN J. YOUNG, JR., NOMINEE TO BE ASSISTANT 
 SECRETARY OF THE NAVY (RESEARCH, DEVELOPMENT, AND ACQUISITION)

    Mr. Young. Chairman Levin, Senator Warner, Senator Reed, it 
is a great honor to appear before you today as the President's 
nominee to be Assistant Secretary of the Navy for Research, 
Development, and Acquisition.
    I have a statement for the record, and I would like to make 
a few brief remarks. I appreciate the time and effort devoted 
by members of the Senate Armed Services Committee to 
considering my nomination.
    First, I wish to thank President Bush, Secretary Rumsfeld, 
and Navy Secretary England for the privilege of being nominated 
to serve in this position. I strongly support their efforts to 
better prepare our Nation's forces for the future.
    In the same breath, I want to thank my family for 
supporting me in this nomination.
    I have served Chairman Inouye, Senator Stevens, and the 
other members of the Senate Appropriations Committee as a 
professional staff member for the past 10 years. Senator 
Stevens and Senator Inouye, as veterans, as lawmakers, and as 
citizens have provided a daily example of leadership and 
determined support for our Nation. They have faced dangers that 
I have never known and, hopefully, the Nation will never know 
again because of their unwavering support for preparing our 
defenses to overcome any and all challenges. I do not have 
adequate words to thank them for introducing me.
    During my tenure in the Senate, I have had the opportunity 
to work with and learn from Senators, my dedicated staff 
colleagues on the Defense Appropriations Subcommittee, as well 
as the excellent professional staff supporting the Armed 
Services Committee.
    It has been rewarding to serve the Senate because of the 
uniform and bipartisan support and desire of members and their 
staffs to provide for our soldiers, sailors, marines, and 
airmen.
    Looking ahead now, I strongly support Secretary England's 
goals to improve combat capability, to meet the professional 
and personal needs of sailors and marines, to apply technology 
to the challenges posed by an advancing threat, and to change 
the business practices that hinder timely and affordable 
purchase of new systems and capabilities. If confirmed, I look 
forward to working through the details of Navy and Marine Corps 
research, development, and acquisition programs to accomplish 
these goals.
    As a professional staff member, I have often thought of the 
sailors and marines who are deployed for months at a time, 
recognizing that our inconveniences are negligible relative to 
what the Nation asks of them.
    Their commitment to this Nation is measured in their daily 
sacrifices as well as the patience and support provided by 
their families and friends. They ask nothing more than to have 
good equipment, adequate training, and the resources to prepare 
regularly and fight when necessary.
    As a participant in the congressional defense process, I 
was able to directly observe the leadership role played by this 
committee in successfully and continually meeting and 
surpassing the objective of doing everything possible for our 
soldiers, sailors, marines, and airmen.
    If confirmed, I hope to work with the strong Navy and 
Marine Corps team, the Defense Department, Congress, and this 
committee to continue this tradition of meeting and exceeding 
these goals.
    I thank the members for their time and attention, and I 
look forward to your questions.
    [The prepared statement of Mr. Young follows:]
                Prepared Statement by John J. Young, Jr.
    Chairman Levin, Senator Warner, and members of the committee, it is 
a great honor to appear before you today as the President's nominee to 
be Assistant Secretary of the Navy for Research, Development, and 
Acquisition. I appreciate the time and effort devoted by the members of 
the Senate Armed Services Committee to considering my nomination. The 
opportunity that lies ahead is both daunting and exciting. However, 
before I can look ahead, I wanted to say a few things about the past.
    First, I wish to thank President Bush, Secretary Rumsfeld, and Navy 
Secretary England for the privilege of being nominated to serve in this 
position. I strongly support their efforts to better prepare our 
Nation's forces for the future as well as their initiatives to spend 
our defense investment dollars more efficiently.
    I have served Chairman Inouye, Senator Stevens, and the other 
members of the Senate Appropriations Committee as a professional staff 
member for the past 10 years. Senator Stevens and Senator Inonye, as 
veterans, as lawmakers, and as citizens, have provided a daily example 
of leadership and determined support for our Nation. They have faced 
dangers that I have never known and hopefully the Nation will never 
know again because of their determined, unwavering support for 
preparing our defenses to overcome any and all challenges. I do not 
have adequate words which can express my appreciation for the great 
honor of having these gentlemen introduce me to the Senate Armed 
Services Committee.
    As a member of the Senate Defense Appropriations staff, I have been 
able to make recommendations on a range of defense issues to the 
members of the Appropriations Committee and Congress. Because of the 
excellent spirit of coordination and cooperation between the Senate 
Armed Services and Appropriations Committees, I have also had the 
chance to work with many members of the Armed Services Committee on key 
defense issues. Finally, I have had the pleasure of working with and 
learning from dedicated staff colleagues on the Defense Appropriations 
Committee as well as the excellent professional staff supporting the 
Armed Services Committee. These experiences have been some of the best 
of my professional career. It has been rewarding to serve the Senate 
because of the uniform and bi-partisan desire of members and their 
staffs to provide for our soldiers, sailors, marines, and airmen.
    My industry experiences proved to be excellent preparation for my 
task of reviewing defense programs in support of the Senate. It was 
important for me to work on technology development, project management 
and testing in order to appreciate both the capabilities and limits of 
defense firms. Industry is an important ally in delivering the combat 
capability of the future, and I will work to enhance the Navy and 
Marine Corps' industry relationships, if confirmed.
    Looking ahead now, I am pleased to have the opportunity to work 
with the Defense Department as well as Members of the Senate and the 
House of Representatives to make further improvements in the combat 
systems and equipment which our sailors and marines will rely on to 
provide for the Nation's security. Indeed, the support of the President 
and Congress will be essential to ensuring the Navy and Marine Corps 
can efficiently and affordably acquire modern weapons systems which 
will allow sailors and marines to overcome any threat that the future 
presents to this Nation's territory and ocean commerce.
    Each of you is familiar with the key problems facing the Navy and 
Marine Corps. Secretary England very effectively outlined his strategic 
thrusts in support of the President's vision for our military. I 
strongly support his goals to improve combat capability, to meet the 
professional and personal needs of sailors and marines, to apply 
technology to the challenges posed by an advancing threat, and to 
change the business practices that hinder timely and affordable 
purchase of new systems and capabilities. Clearly, the Navy and Marine 
Corps must make progress in accurately pricing and then controlling the 
cost of new weapons systems. Further, more can be done to assure that 
the systems being purchased are fully tested and ready for combat.
    While there are concerns and improvements to make, there is also 
progress. Many new systems appear to be on the verge of overcoming the 
challenges of development and delivering real and meaningful new 
capabilities to our warfighters. Further, as Secretary England 
highlighted, there are available commercial and defense technologies 
that, with changes in business practices, can be quickly harnessed to 
expand our buying power and combat capability.
    If confirmed, I look forward to working through the details of 
current Navy and Marine Corps acquisition and development programs. I 
also will work to ensure that research programs are focused on the 
current and future needs of our naval forces. There are also research 
and development programs in the other services and defense agencies 
which can be applied to meeting the weapon and technology needs of the 
Navy and Marine Corps.
    As a professional staff member, I often thought of the sailors and 
marines who are deployed for months at a time, recognizing that our 
inconveniences are negligible relative to what the Nation asks of them. 
Their commitment to this Nation is measured in their daily sacrifices 
as well as the patience and support provided by their families and 
friends. They ask nothing more than to have good equipment, adequate 
training, and the resources to prepare regularly and fight when 
necessary. As a participant in the congressional defense process, I was 
able to directly observe the leadership role played by this committee 
in successfully and continually meeting and surpassing the objective of 
doing everything possible for our soldiers, sailors, marines, and 
airmen. If confirmed, I hope to work with the current, strong Navy and 
Marine Corps team, the Defense Department, and Congress to continue 
this tradition of meeting and exceeding these goals.
    I thank the members of the committee for their time and attention. 
I look forward to your questions.

    Chairman Levin. Mr. Young, thank you, and I am sure that 
Senators Inouye and Stevens would appreciate your tribute to 
them, well deserved.
    Dr. Cambone, let me start asking you about Macedonia. The 
situation seems to be continuously unraveling. Civil war is a 
definite possibility there. If civil war erupts in Macedonia, 
then a renewed conflict could occur elsewhere in the Baltics as 
a result. That, in turn, could undermine the efforts of NATO 
including the U.S. in Kosovo, in the Presovo Valley in Serbia.
    The United States, unlike other NATO allies, was apparently 
unwilling to make a commitment to participate in a NATO mission 
to oversee a voluntary disarmament of ethnic Albanian 
insurgents, even if the environment became benign.
    What are the criteria that you would recommend be used in 
deciding whether or not U.S. forces participate with the forces 
of our NATO allies in a NATO mission in Macedonia in either a 
benign or a hostile environment?
    Dr. Cambone. Let me say first of all, that the broad 
analysis that you have made about the importance of the 
situation as it is evolving in Macedonia is shared by many 
people. The Secretary and others have been engaged in 
discussions on this subject.
    For my part, I think there are a handful of items we have 
to keep in mind. First, the objective ought to be to try to 
keep the legitimate government of Macedonia capable of 
functioning as such. That includes both its ability to exercise 
its powers of sovereignty, but also to respect the rights and 
circumstances of its ethnic populations. Any action that is 
undertaken with respect to Macedonia ought to have that in mind 
first and foremost.
    Connected and intimately bound up with it is the fact that 
we already have--the United States does--deployed to Macedonia 
some 500 people, who have a variety of tasks, two of the most 
prominent being guarding the lines of communication to the 
forces at K4, and conducting reconnaissance operations and 
surveillance operations out of Macedonia.
    Chairman Levin. Do you want to pull that mike up? Many 
people in the rear are not able to hear you.
    Dr. Cambone. I am sorry, sir.
    Chairman Levin. Just speak right into it.
    Dr. Cambone. Second, therefore, we need to be careful in 
any steps we take to assure that our people are, in fact, 
protected and those supply lines are kept intact going into 
Kosovo.
    Chairman Levin. Is it true that we have decided whether or 
not we would join with NATO in an operation in Macedonia? Have 
we set limits on it? If so, what?
    Dr. Cambone. Senator, I cannot answer that question.
    Chairman Levin. When you say you cannot answer it, that is 
because you are not----
    Dr. Cambone. No. I do not know the answer to the question, 
sir.
    Chairman Levin. Thank you. In your response to a pre-
hearing question on the proper criteria for involvement of U.S. 
armed forces and military operations overseas, you stated that 
you would work to ensure, this is now your words, ``that when 
we deploy our armed forces, the mission is justified, well-
defined, and the strategy is well-conceived.''
    You did not include an exit strategy in that description, 
and I am wondering if that was intentional or just oversight.
    Dr. Cambone. Oh, no, sir. It was not an omission. As part 
of a well-conceived strategy, one ought to know what the 
objectives are and ought to be able to have the criteria in 
hand for knowing when they have been achieved.
    Having done so, we then ought to be able to withdraw our 
military forces and, in a case like a Bosnia, be able to turn 
over those kinds of operations to civil authorities.
    Chairman Levin. I want to move to missile defense. This is 
a subject which is going to take up a great deal of this 
committee's time.
    The first question relates to this: As a special assistant 
to the Secretary of Defense, you have been heavily involved in 
the Ballistic Missile Defense Program at the Department. In a 
briefing to this committee on June 13, General Kadish, the 
Director of the Ballistic Missile Defense Organization, 
presented the results of the Department's missile defense 
strategy review and its recommendations.
    He said that if the recommendations from the strategy 
review were implemented, there would be no violation of the ABM 
Treaty in fiscal year 2002. Is that your understanding of that 
review, number one?
    Number two, is it your understanding that the fiscal year 
2002 budget request reflects that strategy review?
    Dr. Cambone. I will answer the second one first, if I may, 
sir. The budget request will find its way here either this 
evening, I hope, or in the morning. Within it will be a series 
of recommendations for spending.
    I know that the Secretary is going to be prepared to 
address this specific question at tomorrow's hearing, and I 
think all in all it would be better to defer to him on that 
question.
    In terms of General Kadish's comments, I cannot speak for 
General Kadish, sir. The objective of the program, as it is 
being proposed, is to be able to permit the United States to 
pursue the most effective and efficient form of missile defense 
that is possible, allowing us to make intercepts in each of the 
phases of the flight of a ballistic missile, and to do it in a 
way that allows us to take advantage of advances in technology 
as they occur.
    Therefore, as the program unfolds, there will be 
adjustments and changes to it, particularly as General Kadish 
learns more about what he can and cannot do, both technically 
and in terms of the direction and guidance he has been given by 
the Secretary.
    Chairman Levin. Do you know whether or not the budget that 
has been submitted to us reflects the review of the BMDO 
relative to missile defense budget?
    Dr. Cambone. Yes. I am certain we have, sir. The Ballistic 
Missile Defense Office has proposed a program for 2002 that is 
reflected in its budget. There are a handful of undertakings 
within that budget which will be, during the course of the 
year, reviewed and considered.
    I think one important thing that distinguishes this 
approach from past approaches is that what we do not have in 
this budget is a major acquisition program of the sort that we 
have had in the past, in which there are clear stages and 
milestones and activities that are laid out on a year-by-year 
basis.
    It is designed to provide, as I said, the kind of 
technological experimentation that is necessary to move the 
program forward and develop as the year goes forward.
    Chairman Levin. My time is up. I want to make sure I 
understand the first part of that last answer very clearly.
    What you are saying to us is that the budget which is being 
submitted to us reflects the BMDO's review relative to missile 
defense, so that what General Kadish told us on June 13 is 
reflected in this budget submission?
    Dr. Cambone. The proposed program from General Kadish is 
the one that he has submitted.
    Chairman Levin. But----
    Dr. Cambone. Whether General Kadish's statement to you 
about what the implications of all of the program activity that 
he has put forward or not is correct, that I cannot attest to, 
sir. I do not know what General Kadish has argued on that 
point.
    Chairman Levin. All right. But putting aside his 
characterization, which was that there was no conflict between 
that proposal of his for 2002 and the ABM Treaty, what you are 
saying is that his proposal or his review is the review that is 
reflected in the budget request, his outline of a program.
    Dr. Cambone. Yes, sir. I mean, he has proposed that----
    Chairman Levin. His outline of the 2002 program is what is 
reflected in the 2002 budget request; it has not been changed.
    Dr. Cambone. Well, insofar as I know, given the fact that 
there were adjustments made as the marks came down from OMB for 
the budget, and they went through a process of adjusting that 
program--and let me say, as well----
    Chairman Levin. Insofar as you know then, the answer is 
yes?
    Dr. Cambone. I believe so, Senator. But on the other hand, 
there is a great deal of advice that is given to people about 
what is and is not part of the program and how it is going to 
be conducted. I think we need to await the Secretary's 
statement tomorrow. He can give you a definitive answer to the 
question you are asking.
    Chairman Levin. Have you not had any conversations in the 
last week with General Kadish?
    Dr. Cambone. Yes, sir. We talked to him both yesterday and 
previously.
    Chairman Levin. Did this subject not come up?
    Dr. Cambone. Yes, sir, it did. Let me be as clear as I can. 
The program that General Kadish has submitted is within the 
reductions that they took and the changes that he made within 
that program, based on the marks that came from OMB, the 
program as it was proposed. There are adjustments, and there 
are changes to it that had taken place over the course of the 
last 10 days as they have adjusted for budgets.
    In terms of explicit programmatic detail, I think what you 
are seeing in some of these statements is different 
understandings of how the program will unfold over the course 
of the next year based on where they expect to make progress 
and where it is that they could inject certain activities into 
the program.
    Chairman Levin. I will pursue this in my next round.
    Senator Warner.
    Senator Warner. We have a vote, Mr. Chairman. I would 
simply follow up while this subject is fresh in mind, that this 
morning in the discussions with the Secretary, my distinguished 
Chairman had a colloquy with the Secretary on this point, and I 
recommended today the record of General Kadish's testimony 
before this committee be brought to the Department, carefully 
reviewed, so that the Secretary can explicitly answer our 
Chairman's questions tomorrow, because I am very anxious.
    This is an important year, 2002, to the United States 
military. I want to see our bill moved through Congress and 
become law. If we get tangled up on legitimate differences of 
views on this missile defense program, I happen to be among the 
strongest of supporters of the President's goals, that will 
stall this bill out quicker than anything I have seen in some 
time.
    We were stalled out for some 50 days last year for other 
reasons, and I am just hopeful under the guidance of our 
Chairman that we could move this bill through and we can 
reconcile these differences, because it is my judgment, 
listening and studying what the President has said, that he 
wishes to start some new initiatives. But I do not detect any 
clear desire to go against the ABM Treaty and its provisions 
until such time as he has completed a program, which he has 
started already, of negotiating with our allies--or I should 
not say, maybe, ``negotiating,'' but in consulting with our 
allies. Indeed the initial consultations that he has had with 
President Putin, I think he has done commendably well, and we 
are moving forward.
    But in my own opinion, without any facts to back it up, 
he's not going to reconcile in all probability a new framework 
as he has annunciated prior to the 2002 bill coming up for a 
vote in Congress.
    We have to decide, given that I am correct in my prognosis, 
how we reconcile giving this President some new initiatives, 
such that he can lay the foundation for a new architecture and, 
at the same time, not jeopardizing passage of the bill because 
of controversy over the ABM Treaty. That is my view.
    Chairman Levin. I very much welcome Senator Warner's 
comments, by the way. I think they are very much on target, but 
I would urge you to review this transcript because if there is 
a conflict between what the Secretary tells us tomorrow and 
what General Kadish told us just a week ago, there is an 
unnecessary firestorm that is going to be unleashed on that 
issue. So take a very careful look at that transcript.
    Dr. Cambone. I will, sir.
    Chairman Levin. You are in a position where you can do 
exactly that?
    Dr. Cambone. You have my word that we shall.
    Chairman Levin. We will stand adjourned for----
    Staff. Mr. Chairman.
    Chairman Levin. Excuse me. [Pause.]
    OK.
    Senator Inhofe. I have already voted.
    Chairman Levin. You have already voted. Terrific.
    Senator Reed, you have not voted?
    Senator Reed. I have not, no.
    Chairman Levin. Do you want to try a couple of minutes 
before you vote?
    Senator Reed. Let me just--just a few minutes, and I will 
go over and vote.
    Chairman Levin. Please, we will call on Senator Reed. Then 
we will turn it over to Senator Inhofe.
    Senator Reed. Let me just first say, once again, I commend 
all of you for your willingness to serve and particularly to 
Mr. Brown, who was someone I respected and admired a great deal 
as a faculty member at West Point. It is a good day for West 
Point, as I am bracketed between two graduates, 1961 and 1977, 
so congratulations.
    I will just follow up on a question, Dr. Cambone. You in 
your response suggested that the direction of the missile 
defense program is going to be abandoning a formal acquisition 
program with clear stages and milestones.
    A simple question: how does one manage a program without 
clear stages and milestones?
    Dr. Cambone. Yes, sir.
    Senator Reed. More importantly for our point, how does 
Congress effectuate appropriate oversight? Those are two major 
issues, I believe. Related to that is whether or not that is a 
strategy driven by policy and budgets rather than a sound 
acquisition strategy.
    Dr. Cambone. I am hopeful, sir, that it is sound on all 
three points.
    The proposal is for the Ballistic Missile Defense Office to 
concentrate more fully on its research and development test, 
experiment and demonstration activities. As it moves forward in 
those activities and begins to discover which of the 
technologies, system designs, and concepts prove to be more 
effective, more affordable, and able to give support to defense 
operations across each of the phases of a missile's flight, 
they will move those programs into acquisition programs.
    They will take a program, which has gone through its 
testing, evaluations, and experimentation, and when we come to 
that point, the proposal says, when we are prepared to move 
into acquisition, the proposal is that that system be 
transferred to a service, whether the Air Force or the Army, 
and that in its transfer, it be fully funded and brought into 
then the acquisition process for its subsequent development and 
deployment.
    As we stand today, the Ballistic Missile Defense Office has 
both its research, development, tests, evaluation, 
experimentation work, and acquisition responsibilities.
    So what the proposal is, is to get it much more closely 
focused on the first part of the mission, and then as the 
systems evolve and become appropriate to transfer them to the 
services for production and procurement.
    Senator Reed. This begs the question of, then, why 
originally was it thought that we should combine all those 
functions into one agency? Again, generically there has been 
traditionally criticism of military programs as being 
disjointed, in which some agency does the design; some agency 
does acquisition; some agency does this; and some agency does 
that. You seem to be going back to the latter model.
    Dr. Cambone. There was a closed discussion, sir, between 
the Secretary, General Kadish, and the Chiefs on this question. 
There was agreement that this approach would serve the broader 
purpose of trying to be certain about the nature of the 
technologies and give the Ballistic Missile Defense Office a 
freer hand to be able to advance those technologies which work 
best, to leave behind those which were not succeeding, and to 
move to new ones as the opportunity presented itself.
    When you are managing a research program as an acquisition 
program, the strictures are much tighter. The ability to adjust 
from one approach to another approach is oftentimes more 
difficult.
    So what we were looking to do was to make sure that there 
was a greater facility on the part of the developers to 
understand what they could accomplish. Then, when they had 
established the basic capabilities, to then transfer it into a 
standard acquisition program and to place that acquisition 
program in the services.
    Senator Reed. Let me just suggest that this will be a topic 
of intense interest and scrutiny as the budget comes over, 
particularly, I believe, on this committee and certainly my 
interest.
    One final comment: It seems to me that this is 
understandable, but you have a program that is in 
organizational realignment. You have a technology that has been 
criticized, frankly, within the ranks of the Department of 
Defense. Mr. Coyle has rendered some opinions prior to his 
departure.
    All of this would suggest it is not a program that is ready 
for deployment in the next year or so, which goes back, I 
think, to the issues that Senator Levin was speaking to.
    Dr. Cambone. Yes, sir.
    Senator Reed. But thank you, Dr. Cambone.
    Gentlemen, thank you and, again, I commend you all for your 
willingness to serve the Nation. Thank you.
    Dr. Cambone. Thank you, Senator.
    Senator Inhofe [presiding]. Thank you, Senator Reed.
    I have come at a very opportune time, I see. So there are a 
number of things, I understand, that have been discussed here. 
I was late because I was having a meeting with Condoleezza Rice 
on the same subject you were discussing here.
    First of all, I know some discussions were taking place on 
the ABM Treaty. Let me just assure that there are a large 
number of people who share my ideas about the ABM Treaty.
    Sometimes I think it is an advantage not to be a lawyer, so 
you are not encumbered by all these details and you can look at 
a treaty that was made between two nations, one of which does 
not exist any longer, where the threat is totally changed in 
accordance with Henry Kissinger, the architect of the ABM 
Treaty.
    The idea of mutually assured destruction might have had a 
place in the past, but with the proliferation of not just 
weapons of mass destruction, but the means of delivering those 
weapons, and when we do not really know who has these 
technologies.
    I was pretty stressed out back in August 1998 when we asked 
when would North Korea have a multiple rocket capability, and 
they said it would be sometime in the next 5 to 15 years. And 7 
days later, on the 31st of August 1998, they fired one.
    So we really do not know who has what out there. But we do 
know this: That the threat that faces us today is from a number 
of nations. We know that China, Russia, North Korea all have 
that capability. We also know that they are trading technology 
and systems with countries like Iraq, Iran, Libya, Syria, 
Pakistan.
    I just would like to have you aware of the fact that I had 
asked this question. I think, Dr. Cambone, Condoleezza Rice was 
on Meet the Press this Sunday. When she was asked the question 
about the restraints of the ABM Treaty, her response was, 
``Well, you know, our job is to defend America. If we come up 
against that, then that is a problem, but we have to do 
whatever is necessary to build a system that will defend 
America against incoming ballistic missiles.''
    Did you hear her make that statement, Dr. Cambone?
    Dr. Cambone. No, sir. I will confess that I was in church 
when she was on television, sir.
    Senator Inhofe. But anyway, the administration is now 
getting a little bit stronger in its determination that you 
cannot construct a system within the framework of an ABM 
Treaty. You cannot have a sea-based system. You cannot have the 
radar detections that are necessary to adequately protect 
yourself.
    So I would like, for starters, just to have you share with 
me, now, maybe it is redundant to what you have said before, 
but how can we both defend my eight grandchildren and still 
stay within that treaty?
    Dr. Cambone. Sir, I do not believe it is going to be 
possible to do so. The treaty has any number of provisions, 
which make the type of defense that is the capability that is 
necessary to defend the United States and might I add, our 
allies and friends abroad, against missiles of any range 
increasingly difficult to develop, test, demonstrate, and 
deploy.
    There are four articles of the treaty which come 
immediately to mind. Article One of the treaty bans the 
territorial defense of the United States.
    Senator Inhofe. Yes. Article Five is----
    Dr. Cambone. We are hopeful that we are going to be able to 
do that.
    Article Five prohibits the testing and deployment of ABM 
systems, mobile systems either at sea or air-based and other 
forms of mobile systems.
    Article Six bans the conversion of non-ABM systems, theater 
defense systems into capabilities that might be able to counter 
longer range missiles. Might I add, there is no definition in 
the treaty on what it means to counter a longer range ballistic 
missile with a non-ABM system.
    Article Nine prohibits us from transferring technology, 
blueprints, and other forms of information to others of systems 
that would be capable of intercepting longer range missiles. 
That includes, ironically enough, the Russians. The treaty as 
it stands now, if it is to be observed, would, in fact, 
prohibit that transfer even to the Russians, if an agreement 
were reached.
    Senator Inhofe. You are all five just so qualified. It is 
very rare that we have a group like this. I will be very proud 
to be working with each one of you.
    You have said it very well. I have used those same four 
articles in discussions, even once this morning. I think that 
it is just important that you know, you folks are being 
nominated by the President, who has a very specific idea about 
our necessity to defend America and how we are going to do it.
    I know there can be some obstacles. Some people have honest 
differences of opinion as to what the type of threat that is 
out there is. But George W. Bush is President of the United 
States, and I happen to agree with his perspectives.
    We will have some obstacles. We will have to work out those 
on this side of the table, the legislative things. I am sure 
that you will carry out your end of it.
    Mr. Montelongo, am I saying that right?
    Mr. Montelongo. Yes, sir.
    Senator Inhofe. You were with Senator Hutchison for awhile, 
were you not?
    Mr. Montelongo. At one time, sir, I was a Congressional 
Fellow in her office.
    Senator Inhofe. You have also, I know, had 20 years 
experience in the U.S. Army, so you have a lot of 
qualifications.
    We have some issues, and having served with Kay Bailey 
Hutchison and since Kelly was in her district, you are familiar 
with the air logistics centers. Today, after the four BRAC 
rounds, we went down, particularly the last round, from five 
air logistic centers operating at about 50 percent capacity to 
three operating at about 80 percent capacity.
    That 80 percent capacity is now up to about 100 percent 
capacity, depending on the two ways that they evaluate the 
capacity.
    We have a system that is based on the necessity for 
national security purposes of having core capability from 
within. That core capability is very important to protect and 
until we come up with a better way, this arbitrary 50/50 is the 
law today. Unfortunately, we have been operating on a national 
security waiver that has allowed them to go more than 50 
percent outsourcing.
    This has concerned me quite a bit. It concerns me that when 
I hear discussions out there that perhaps maybe we can go 
outside that 50 percent if the air logistic centers are at full 
capacity. Now, this argument could be used with any other 
centers, too. I am using this because I am more familiar with 
air logistic centers.
    One of the reasons we are at 100 percent capacity is that 
we have old equipment. We are not able to do the things that we 
should be able to do in upgrading and modernizing our 
equipment. So as new platforms come in, we are not able to 
adapt to them.
    Now, from your perspective, and anyone else who has any 
ideas on this might respond too, what are your plans to, in 
terms of financially, getting our air logistics centers and our 
other depots around the country up to a state of modernization 
so they can absorb the new responsibilities and be able to keep 
us compliant with our 50/50 guidelines?
    Mr. Montelongo. Sir, you certainly cite one area that is 
very critical and, if confirmed, I intend to certainly give it 
the priority that it deserves.
    You talk about modernization, and that is certainly one of 
the key things that we have to address going forward, and 
certainly the depots are part of that whole picture of 
modernization. As I say, that is one area that I will 
absolutely give lots of attention to, if confirmed.
    Senator Inhofe. Yes. Do you believe, then I appreciate that 
answer very much and I would assume that you are committed to 
keeping a core capability in depots, so that we would not face 
the--some day the problems that we have all been concerned 
about, being relying upon sole source outside, if a war should 
come along.
    Mr. Montelongo. Sir, I do believe that there are missions 
and tasks that are inherently governmental and that certainly 
need to belong in that area and in the public domain.
    Senator Inhofe. Yes. I would like to hear from anyone else 
who might have some ideas, even though you might not directly 
in your job be faced with this. It is still something that each 
branch of the service is going to have to deal with.
    With this changing environment I had noticed--we are down 
now in the United States of America to primarily three 
contractors that can build air platforms. When I came in 1986 
to the House, we had about 20. So it is a different environment 
out there. That makes this core capability, in my opinion, even 
more significant.
    Does anyone have any comments to make about that? John?
    Mr. Young. Senator, I agree with your point on the 
consolidation. It is a competition issue, and it is a services 
issue for the Department. The core capabilities in the depots 
have served us well.
    I think from my work in the Senate that some of the 
companies have partnered with the depots to try to do positive 
things to make both sides efficient. If confirmed, I will 
certainly continue to work towards those goals to make both 
sides provide good service for the Nation and maintain both an 
organic capability and the industrial base we need.
    Senator Inhofe. Yes. Pardon me for calling you John. I 
guess that is not proper in a setting like this, but we have 
worked together for many years and also we witnessed together 
in the last few weeks where we are relative to the competition 
out there and our potential adversaries in terms of our air-to-
air capability, air-to-ground capability.
    While most Americans think that our modernization program 
is ahead of the rest of the world, they are wrong. We are not. 
There are platforms out there that are far superior to those 
that we have.
    Any other comments about this subject? [No response.]
    Another question, Mr. Montelongo. In terms of flying hours, 
recently the Navy and the Air Force have under-estimated the 
cost of flying hours and causing the need for an emergency DOD 
supplemental. The reasons for this are concerning the increased 
cost of flying older aircraft and an ineffective budget 
process. What is your plan to correct this malady?
    Mr. Montelongo. Senator, I am not familiar with the 
mechanics of estimating the cost of flying hours at the moment. 
I will tell you that, as I understand it, certainly flying 
hours is the heart and soul of the Air Force, an Air Force that 
is extremely busy today, that is in combat today, that is 
flying an ever increasing aging fleet, as you have pointed out.
    Because it is that important, if confirmed, that is an area 
that I plan to invest the time necessary to understand and 
appropriately address the issue.
    Senator Inhofe. Good.
    Mr. Aviles, the same situation in the Navy: What are your 
thoughts?
    Mr. Aviles. Yes, sir. Senator, I would have to go along 
with Mr. Montelongo's comments in that I am not particularly 
familiar with the mechanics of how those models are developed 
to estimate what the flying hours program costs would be, as 
the budget is developed in each year.
    I would definitely concur with your comments that this has 
been a systemic problem, it appears, because this theme has 
cropped up each year as we have seen supplemental requests come 
up, both in the flying hours program and depot maintenance 
programs.
    If confirmed, I commit to be actively involved in trying to 
establish what the root cause for these issues are and to try 
and develop solutions to it.
    Senator Inhofe. Yes. I bring this up, because I have 
chaired the Senate Armed Services Readiness Subcommittee for 
the last 4 or 5 years and have occasion to really look into 
this retention of pilots problem, a very expensive problem that 
we have. It is even more pronounced in the Navy than it is in 
the Air Force.
    One of four or five issues that comes up when I talk to 
groups of pilots is this thing. They are not getting the flying 
hours that they need, and they are not getting the red flag 
exercises and some of these and the constraints are financial 
constraints. I think it is something that really has to be 
done.
    Do you think that without the supplemental, Mr. Montelongo, 
that the Air Force can operate effectively without relying on 
an annual emergency supplemental?
    Mr. Montelongo. Senator, I am not familiar with the 
specifics of the supplemental for some obvious reasons. I have 
not been, obviously, confirmed yet, but I fully agree with your 
statement that unless our Air Force has the funding to do the 
flying that it must do, it cannot do its mission.
    Senator Inhofe. I just feel very strongly about that.
    Mr. Brown, you in your testimony, even though I did not 
read it, but my staff says that you address this, the problem 
we are having with retention in some detail and you see this, 
hopefully, as a crisis that I see it as now.
    In terms of recruiting and retaining, I guess I am the only 
member of this committee that is--you cannot give me a card. I 
am the only one--oh, no, the Chairman is back now.
    I had a pretty good deal going, Mr. Chairman, for awhile. 
[Laughter.]
    Chairman Levin [presiding]. Keep going. Keep going.
    Senator Inhofe. OK. I guess I am the only member of this 
committee who openly and publicly says that I believe we should 
return to the draft to compulsory service. I was a product of 
that.
    Do you see that as something on the horizon that might be 
an alternative? I look and I talk about the cost of retention 
of these people. Of course, the quality of life has gone down. 
We need to rebuild that, and we are in the process of doing 
that right now and taking care of all these things.
    But I wonder sometimes if all the services, in order to 
retain the quality of people, might want to relook at that some 
day in the future.
    Mr. Brown. Senator, I think that you have put your finger 
on perhaps the most important element in the volunteer force 
that we run today, and that is to be able to recruit and retain 
the people that we need.
    When I served on the Defense Manpower Commission in the 
1970s that was one of our primary fears, and so we kept the 
whole apparatus for conscription in place. Twenty years later I 
look at this, and I am surprised at how well the services have 
done in meeting their objectives.
    So far, the numbers look good. I think we have to continue 
in that vein and give this volunteer system what it needs in 
order to work. The incentives that we need deal with the 
quality of life issues, deal with the OPTEMPO issues. If we do 
that, I think we can continue to make the targets.
    Senator Inhofe. I would hope that you bring out the issues 
that are there, but you almost have to go to the field to 
really sense it and talk to these kids that are out there. Go 
to Fort Bragg sometime during a rain storm and see what it is 
like inside the barracks. It is raining in there, too.
    These guys are covering their own equipment. We have real 
property maintenance shortfalls that they have swapped around, 
bought more bullets instead of doing these things.
    I hope that you will be able to look at that and see that 
in the field and respond in this forum. All too often we will 
have hearings here in Washington, and it is very difficult for 
people to come in. There is a spirit of intimidation that none 
of you feel, of course, but others do when they come in.
    I would just hope that you would be able to see the real 
need, the real problems in these shortfalls that are out there.
    Mr. Brown. Yes, sir.
    Senator Inhofe. Mr. Chairman, can I have one more question?
    Chairman Levin. Please, yes.
    Senator Inhofe. I know I have abused this, but I do want to 
take advantage of the opportunity.
    You have been probably sensitized, in terms of the Navy to 
the problem at Vieques. It is very real, and we probably have 
differing opinions at this table.
    We dealt with this problem last year when the Chairman and 
the current Chairman got together and decided in order to do 
the best we can to try to make every effort to retain this very 
valuable range. I do not believe there is any place else in the 
world that can duplicate it in terms of the three missions that 
are performed there simultaneously in the unified training. 
That is the marine expeditionary landing, the live Navy firing 
and, of course, the rest of the battle group from the air, the 
F-14s and F-18s using live ordnance.
    In fact, on March 12, we had an accident where we lost six 
people, five of whom were Americans. The accident report makes 
it very clear that we did not get adequate live ordnance 
training.
    We need to get back to that, but in the event that it does 
not happen, we are going to go forward and do the best we can 
with the referendum in November. If for some reason that does 
not come out the way it should come out, we would have to start 
constructing and spending quite a bit of money to try to 
replicate this training as near as possible.
    Mr. Aviles, primarily you are going to be faced with some 
alternatives. How are you going to fund that?
    There are some, perhaps, opportunities out there. I think 
you know that we rebate back to Puerto Rico about $300 million 
a year on rum tax. Primarily a lot of these benefits that are 
to the advantage of Puerto Rico, do so because we have been 
able to use that range. We own it, of course, but we are using 
it.
    Do you think that maybe that would be a place where you 
could look for another $300 million a year that might help 
offset the loss of Vieques?
    Mr. Aviles. Senator, I just would like to say that I am 
somewhat out of my element speaking with respect to Vieques 
policy. Having worked as a staffer on the House Armed Services 
Committee, I am well aware of the efforts that went into the 
legislation that was put forward and became law last year.
    I guess my concern is I really am in deep water if you are 
looking for me to comment on tax cut policy. That is something 
that is completely outside my experience.
    Senator Inhofe. It may not be completely outside if the 
time should come, and the Navy were to lose that referendum, 
you would be looking for places and opportunities.
    So we will be in a position to talk about that later, but I 
think there are some areas where we can look. Hopefully we will 
not be faced with that and we will get back to our live range 
as it has been over the last 50 years.
    Mr. Aviles. Yes, sir.
    Senator Inhofe. Thank you, Mr. Chairman, for your 
tolerance, sir.
    Chairman Levin. Thank you.
    Dr. Cambone, back to the different aspects of missile 
defense and whether or not there ought to be demonstrated 
effectiveness before they are deployed.
    This was the prehearing policy question that you were 
asked: ``Would you recommend acquiring or deploying a weapons 
system, including a missile defense system, that is not 
operationally effective?''
    Here was your response: ``No. Defenses that are 
substantially less than 100 percent effective, however, can be 
essential to deterring threats and defending against attacks. 
We should not face an all-or-nothing choice in missile defense 
anymore than we do regarding other defense programs.''
    I understand that weapons systems cannot be 100 percent 
effective all of the time, but ``substantially'' is the word 
you used, ``less than 100 percent effective.'' It sounds to me 
like a standard that is designed for failure. If an airplane is 
80 percent likely to fly, we do not buy it, do not deploy it.
    For a national missile defense system that is currently 
under development, the operational requirement is that the 
system stop every incoming warhead from a limited attack with a 
high degree of confidence. That is the operational requirement, 
is it not?
    Dr. Cambone. I believe it is, sir, yes.
    Chairman Levin. Are you proposing to change that?
    Dr. Cambone. I suspect that it is setting a standard for 
capability which is going to be such that the cost and time it 
takes to reach that objective will inhibit us from bringing 
online capabilities that could be effective in combination with 
other capabilities in the meanwhile.
    Rather than constantly waiting for the system that gets to 
near perfection, there is an advantage to us in having systems 
which are confident and capable and militarily useful, both as 
a way of defending against existing threats and as a way of 
deterring and dissuading others from proceeding with their own 
offensive missile programs.
    Chairman Levin. That operational requirement was set by the 
Ballistic Missile Defense Office in the uniformed military, was 
it not?
    Dr. Cambone. I believe, actually, sir, it came through the 
military channels, through the CINC and through the ordinary 
process.
    Chairman Levin. Right.
    Dr. Cambone. Yes, sir.
    Chairman Levin. But are you proposing to override then the 
CINC's recommendations?
    Dr. Cambone. Sir, I, personally, no, sir.
    Chairman Levin. Are you going to propose to the Secretary 
that he----
    Dr. Cambone. There has, in fact, been discussion amongst 
the members of the Joint Chiefs and with the CINCs about how we 
might think about that requirement in terms of what is 
militarily useful in a system as they are being developed.
    Chairman Levin. Would you supply for the record those 
conversations and discussions?
    Dr. Cambone. I cannot do that, sir, for----
    Chairman Levin. That you are familiar with.
    Dr. Cambone. I am familiar with them, but I cannot give 
them to you. There is not a record in that sense. It was a 
discussion amongst them around the table, sir.
    Chairman Levin. You say you cannot do it?
    Dr. Cambone. I do not have a written record of it.
    Chairman Levin. No. Just your recollection of it for the 
record.
    Dr. Cambone. Sure. I would be happy to.
    [The information follows:]

    For a complete response to the above, please refer to my Question 
for the Record No. 1.

    Chairman Levin. Thank you.
    Relative to your answer on Taiwan, you stated that, if 
confirmed, you would monitor carefully the situation in the 
region and take very seriously our obligation to assist Taiwan 
in maintaining a self-defense capability. Such assistance 
includes not only making available defense hardware, but also 
maintaining contacts with the Taiwan defense establishment 
across a broad range of activities.
    Dr. Cambone. Yes, sir.
    Chairman Levin. My question relates to the part of your 
statement about maintaining contacts with the Taiwan defense 
establishment across a broad range of activities. Is that meant 
to signal a change of policy vis-a-vis Taiwan?
    Dr. Cambone. No, sir, it's not.
    Chairman Levin. Now, Mr. Young and Mr. Aviles, we will let 
Dr. Cambone take a rest here for a minute.
    We received a report recently from the Navy regarding the 
potential benefits and risks associated with the use of 
advanced appropriations for the acquisition of ships. The 
report indicates that the advanced appropriations would enable 
the Navy to ``increase the number of ship starts in the near 
term.'' Over time, the report says, advance appropriations 
would result in a ``loss of flexibility.''
    According to the report, higher levels of funding will be 
required to sustain the building rate, and failure to sustain 
these funding levels will cause disruption to ships already in 
construction, which will lead to increased costs and the 
inability to put new ships under contract.
    My question is this: Are you concerned that if we relied 
upon advanced appropriations that the Navy might bet on 
increased funding in future years and then risk significant 
disruption to its ship-building program if such funding does 
not appear?
    First, Mr. Young.
    Mr. Young. Mr. Chairman, as you have highlighted, advanced 
appropriations is one potential mechanism to try to increase 
the rate of ship building. My experience on the Appropriations 
Committee says we have to be cautious about changing full 
funding policies. The Secretary has articulated a plan to 
submit budgets that fully fund the Department annually.
    If there are advantages to that mechanism, I want to go to 
the building, if confirmed, and try to understand those and 
work with you further on them. But certainly, the hope would be 
to have a fully funded budget in the current year and future 
years.
    Chairman Levin. OK. Mr. Aviles?
    Mr. Aviles. Mr. Chairman, in any financing mechanism that 
is other than full funding that relies on the availability of 
out-year appropriations to complete an individual ship hull, 
there is going to be some uncertainty associated with those 
out-year appropriations. This is the nature of the way that we 
fund the Defense Department.
    Having said that, if confirmed, I would want to take a hard 
look at any of the alternative arrangements.
    Clearly, this is one way to get more ships under 
construction as stated in the report, but as you noted, there 
is some risk or uncertainty associated with what that means or 
portends for the out-years.
    If you want to maintain a higher ship building rate, you 
have to spend more money on ship building whether you do it 
through an advanced appropriation mechanism or full funding 
mechanism. Now, I think, as I said, if confirmed, I would need 
to take a hard look at this and try to decide what provides the 
best value for the Navy, the taxpayers and other stakeholders, 
relevant committees of Congress, ship yards, everyone that is 
involved in this process, to make sure everyone understands 
both the benefits and the risks associated with it.
    Chairman Levin. You used ``full funding'' in the same 
breath as ``advanced appropriations.'' Is there not a greater 
uncertainty with advanced appropriations than there is with 
full funding?
    Mr. Aviles. Absolutely, sir. There is risk associated with 
full funding, as you are aware, Senator, because of problems 
with prior year programs, we have unfunded costs associated 
with prior year programs, because of the inability to estimate 
properly what the ship cost would be.
    There are risks associated with full funding. There are 
risks associated with advanced appropriations. The risk or 
uncertainty with advanced appropriations is whether you would 
have the commitment from the administration to budget for that 
money in the out-years and whether Congress would support it.
    Chairman Levin. But is not the uncertainty greater with the 
advanced appropriations approach than with full funding?
    Mr. Aviles. The question of uncertainty as to whether a 
completely funded ship would be less risky because the 
appropriations would be provided for it, I would have to say, 
yes.
    The uncertainty and the quality of the estimates of the 
cost of that ship, I think, that is a risk under both 
scenarios.
    Chairman Levin. OK.
    Mr. Montelongo, how do you think other military services 
and the Navy would react if there is an over-commitment to the 
ship building program in the form of advanced appropriations? 
Then if the Navy had to look outside of its own budget to get 
the funds necessary to meet day-to-day operating needs, how 
would the other services, do you think, respond to that?
    Mr. Montelongo. Mr. Chairman, that is an area that I, if 
confirmed, want to better understand than I do at the moment. 
But as I understand it, the Air Force has been a long proponent 
of the full funding policy and has, in fact, complied with that 
guidance.
    But having said that, again if confirmed, I stand ready to 
explore all possible procurement alternatives and also perhaps 
look into this particular issue as to the impacts.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Forgive me. I was 
in debate on the floor on the 2001 supplemental. Some effort is 
being made to get the 2001 up today and have all amendments 
filed and debated this afternoon and tonight so we can get this 
voted out before the House leaves town.
    Chairman Levin. Good.
    Senator Warner. There is an effort. I do not know what the 
success may be.
    Dr. Cambone, the subject of NATO expansion has been one 
that I have followed and participated in for years here in the 
Senate. I have the greatest respect for that extraordinary 
coalition of nations and the wisdom that put this thing 
together 50 years ago.
    I have to tell you I see an unraveling of what I believe 
the core values were that held it together these many years. I 
was actively engaged in trying to restrict the expansion beyond 
the one or two nations that occurred last time and to throw a 
note of caution as we proceed to the future.
    I want to let you know where I am coming from on it, 
because I think the pact has served its purpose way beyond the 
expectations of those who laid it down, and it can continue to 
provide a rock of stability in the continent of Europe if it is 
kept pretty much the way it is.
    Nevertheless, it is one of the few times that I have some 
concerns with my President, whom I respect so much, but during 
his last swing through Europe he said as follows, ``For all of 
Europe's new democracies, from the Baltic to the Black Sea and 
all that lie between them'' with reference to some of the 
thoughts he has on expansion.
    Now, I will just make two observations. I think our highest 
priority at the moment is to try and work out with Russia a new 
framework agreement so that we can move forward with a strong 
and new innovative architecture for the limited missile defense 
program.
    If the Baltics became the subject of expansion, then the 
question is put to you and other policymakers in the 
administration: How does that affect the ability to get ahead 
with this, which I regard as the number one priority, the 
limited missile defense, given Russia's strong feelings about 
the Baltics?
    I point out that although I have only been there twice in 
my life, and it was some time ago, I am not prepared to say, 
maybe you are, that they have a military component to their 
overall national structure which would aid NATO in its 
missions. I will leave to others that analysis, but I have not 
seen it as yet.
    So the certainty of this round of negotiations coming up to 
expand is one that we should take into consideration very 
carefully. There may be nations other than the Baltics, which 
are not only deserving, but begin to strengthen NATO.
    I do not know that you need to reply, but I just hope that 
you would take into consideration the views of some of us that 
we have to preserve NATO, to preserve its original goals. Yes, 
the world has changed and the Cold War is terminated, but I 
think we better use the rear view mirror to watch history that 
unfolded.
    When I came to the Senate with Senator Levin 23 years ago, 
there were many calls to pull out from NATO: ``NATO has 
finished its work. Let us pack up and go home.''
    We have a defense budget, which you were present for this 
morning when we listened to our distinguished Secretary talk 
about the future and the need to reconstitute the basic 
procurement structure that is needed to plan for our future.
    Those are big dollars. I could match up dollars and NATO 
expenditures with those, if necessary. Just a little comment 
from a friendly voice here in the Senate.
    To our distinguished members that came from the staffs of 
our committees, the question of the aging of this cadre of 
aircraft that we have in all of our services, the Secretary was 
very good this morning in pointing out how it is becoming more 
and more costly to our budget to maintain the existing old 
aircraft fleets of all of our services, and how that 
maintenance dollar is becoming so significant that it is 
impeding the process to get the procurement dollars for the 
newer aircraft.
    I just want to hear both of you talk about that a little 
bit. Are you aware of that situation? Do you have some 
innovations that you can bring to the attention of our 
Secretary, if confirmed, to help alleviate this problem?
    Why do you not start first, Mr. Young?
    Mr. Young. Senator, because of my work here, I am very 
familiar with the aircraft procurement accounts. You, sir, I am 
sure, and the committee are very aware that in the 1980s we 
bought aircraft at very high rates. Those aircraft are by 
definition now approaching 20 years old.
    The current budget does not necessarily foresee buying 
aircraft at comparable rates. I think the strategic review and 
the QDR process will deal with the force structure issues.
    But from those decisions, I look forward to, if confirmed, 
trying to work with the Department to increase the aircraft 
build rates if the force structure requirements support that, 
and to work with industry and the Department to try to get the 
costs of those aircraft under control.
    Certainly, you are aware of the Joint Strike Fighter and 
the promise it holds. It will require continued attention to 
achieve those cost goals. It holds a lot of promise.
    Senator Warner. In addition, we covered at length this 
morning--the Secretary is right on target with his analysis on 
ship building. He added one ship in his proposal coming up to 
Congress, going from five to six.
    But he pointed out that you need a minimum of nine to stop 
this rapid decline in the numbers of ships, which will take us 
well below 300 if we do not put in corrective steps. Are you 
aware of that problem, also?
    Mr. Young. Yes, sir. Senator Warner, it has been spoken of 
frequently. As I mentioned earlier, the review process will set 
the force structure, but regardless of that, I think the 
Secretary has articulated his expectation that we will have to 
have more ships than the current build rates support.
    My experience in aircraft programs, I have to, if 
confirmed, get out to the shipyards and look at these issues. 
But I hope there are some opportunities to bring design tools 
and other production practices to the shipyards so we can do a 
better job of delivering ships in a timely manner and at a cost 
that puts them on an affordable basis.
    Senator Warner. You also heard about some of the 
innovations with regard to how Congress should fund these 
ships. Are you basically supportive of trying to explore those 
innovations of--in other words, we used to call it advanced 
procurement. We used another term this morning.
    I have been associated with this issue for a very long 
time. We put new names and new titles, but the whole concept is 
to try and utilize such appropriations as are available for 
that fiscal year to maximize the number of ships that we can 
put into the construction process. Are you open to those 
innovations?
    Mr. Young. Yes, sir, Senator. We talked to the Chairman 
briefly earlier. I think every acquisition strategy and 
technique should be on the table to try to get an affordable 
ship building program, where we know the costs and we can get 
the build rate up on ships if at all possible.
    Senator Warner. Good.
    Mr. Young. We just have to make sure we have the resources 
in the future to buy the ships. I think we both articulated 
that we have to have a fully funded budget, where we would like 
to put as many ships as the strategic review supports and the 
shipyards can build into that budget.
    Senator Warner. All right.
    Mr. Aviles.
    Mr. Aviles. Yes, Senator Warner, I would like to echo Mr. 
Young's remarks. We had a discussion with Senator Levin before 
you came back, on the subject of advanced appropriations. The 
discussion chiefly centered around the uncertainty associated 
with the advanced appropriations model, as I understand it, 
with respect to the availability of that out-year funding, and 
balance that against the uncertainty associated with a full 
funding mechanism as we currently use primarily for ship 
building; and the uncertainty there chiefly being in the 
inability to accurately estimate what the true costs of the 
vessel will be from when Congress actually provides the 
appropriations until the construction is actually completed.
    The point that I would make is that under any scenario, 
there will be uncertainty associated with the true costs of the 
ship. Under the advanced appropriation model, the goal there is 
ostensibly to get more ships under construction at a given 
period of time.
    But the bottom line is if you are going to buy more ships, 
it is going to cost more money no matter what financing 
mechanism you use. That is going to take a commitment from the 
administration and Congress to provide those, in addition to 
trying to find ways, innovative ways through technology and, 
or, industrial techniques to trying to reduce the cost of 
production of those vessels.
    Senator Warner. I thank you both.
    Mr. Chairman, I will return to other questions when my time 
becomes available again.
    Chairman Levin. On the financial management issues, Mr. 
Aviles and Mr. Montelongo, the financial management study, 
which was commissioned by the Secretary as part of his 
strategic review, concludes that the Department's current 
financial management systems ``do not provide information that 
could be characterized as relevant, reliable, and timely.''
    Then that review said that the systems were unable to 
provide reliable financial and managerial data for effective 
decision making and management, because what has too often 
happened is that convoluted practices are used to make 
decisions in the absence of that information.
    I assume that, if you are confirmed, you both would commit 
yourselves to address the deficiencies in the financial 
management systems of the respective departments. But I would 
be interested as to whether you have any current ideas as to 
how you would go about that.
    Mr. Montelongo, do you want to start?
    Mr. Montelongo. Mr. Chairman, you bring up a very important 
issue and certainly one that I believe is a critical one that 
is facing us in the Department overall. In fact, I think that 
it is clearly an issue that is department-wide.
    I very much look forward to working with my colleagues, my 
counterparts across the services, and the OSD Comptroller to 
support the Secretary of Defense and the Comptroller, to 
implement consistent budgeting and financial management 
practices.
    One of the key components of that will be to address the 
improving, if you will, and upgrading of the financial 
management systems.
    One of the areas that I am, if confirmed, very excited 
about and looking forward to is, again, getting with my 
colleagues to share best practices and adapting what we can to 
address this particular issue.
    One of the things that I think that we certainly need to do 
is to look at this from an enterprise-wide perspective, 
beginning with developing a system architecture for the 
Department and then having the various services plug into that.
    Chairman Levin. Thank you.
    Mr. Aviles.
    Mr. Aviles. Yes, Chairman Levin. I would like to, I guess, 
echo Mr. Montelongo's remarks with respect to specific changes 
that I would recommend for the Navy.
    If I may, I would like to take that for the record. If 
confirmed, I will certainly be heavily involved in the 
development of alternatives to the status quo. But I do not 
have any specific recommendations at this time.
    Chairman Levin. OK, that is fine. Thank you.
    [The information referred to follows:]

    This is certainly an important issue of concern for the Department 
of Defense. If confirmed, I look forward to working closely with the 
Under Secretary of Defense (Comptroller) and my counterparts in the 
other military departments to look at an enterprise-wide financial 
architecture. Integrating our financial management processes, where 
appropriate, will be critical to providing the visibility and 
accountability necessary for leaders of the Department of Defense to 
make effective and timely decisions.

    Chairman Levin. Mr. Young, relative to the V-22, the 
Osprey, that program is at a critical juncture as a result of 
two fatal crashes and allegations about the falsification of 
maintenance data. A panel established to review the program has 
recommended redesign and follow-on testing for the aircraft, 
which would significantly delay that program.
    At a recent hearing, we heard testimony that some critical 
safety information arising out of flight testing of that 
aircraft may not have been transmitted to the program manager.
    Would you agree that the safety of the aircraft is a 
paramount consideration and we should not move to low-rate 
initial production until we can be confident of that safety?
    Mr. Young. Senator, I could not agree with you more. Safety 
of that aircraft and the safety of the marines that were flying 
it is paramount.
    Chairman Levin. Would you, if confirmed, review the 
relationship between the Navy testers and the program 
management and revise procedures as necessary to ensure that 
critical safety information gets to the program manager?
    Mr. Young. Absolutely, Senator. I would be happy to review 
that and make sure there are processes in place to guarantee 
that information is shared appropriately.
    Chairman Levin. Thank you.
    Mr. Brown.
    Mr. Brown. Yes, sir.
    Chairman Levin. A recent report by an Army training and 
leadership development panel reported that Army culture is out 
of balance. These are their words now: ``There is friction 
between Army beliefs and practices. Over time that friction 
threatens readiness. Training is not done to standard. 
Leadership development and operational assignments are limited 
and do not meet officer expectations. Officers and their 
families elect to leave the service early.''
    Could you give us some ideas as to how you might address 
some of those concerns that have been raised about Army 
leadership and Army culture?
    Mr. Brown. Thank you, Senator. This is, indeed, a very 
important question. The Army has recently completed an 
extensive review of this subject and has come up with an 
extensive program of recommendations as to how to address it.
    It is in the process of evaluating exactly which of these 
should be given the highest priority in terms of being 
addressed. But my understanding is the leadership is very much 
seized with this problem of officer retention and is forthright 
in its commitment to address it.
    Chairman Levin. On a different subject, the Department 
considers the biological agent anthrax the most serious 
biological weapon threat to our military forces. The anthrax 
vaccine immunization program was initiated to address the 
threat, but a number of service members have refused to take 
the vaccine, although ordered to do so.
    How do you believe the Department should respond to service 
members who refuse to take a vaccine when required to do so?
    Mr. Brown. This too is a very important topic, Mr. 
Chairman. I believe that the Army must uphold its good order 
and discipline and apply applicable regulations in this matter.
    Certainly, the Army has taken measures to educate these 
people and try to bring about voluntary compliance. If 
voluntary compliance fails, then it has to resort to existing 
procedures for dealing with this.
    Chairman Levin. OK.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Montelongo, in your capacity as the financial manager 
for the Department of the Air Force, you will probably be 
tasked in part to look over the current infrastructure, base 
structure to advise your Secretary with regard to the possible 
future of another round of BRAC. Have you studied that subject 
at all, base closures?
    Mr. Montelongo. No, sir, I have not studied it in any 
detail, but certainly that is an area we had previously talked 
about.
    Senator Warner. Good. I personally think, and I think the 
Chairman is of the same view, that we, the United States, 
should look at that and consider possible base closure in the 
near future.
    But the key to the success of it is showing where there 
will be a savings. Those types of projections in part fall 
within your purview. If I may respectfully suggest that you 
early on get up to speed on these subjects, because you will 
want to advise your Secretary and be a part of the team that 
addresses that issue for your department and, indeed, in the 
Department as a whole.
    Mr. Montelongo. Yes, sir. Indeed, I believe the Secretary, 
and in fact, I believe all the service secretaries have 
mentioned that they are concerned about excess capacity and 
doing what is prudent to rationalize that. I certainly will 
take your counsel.
    Senator Warner. Good. Well, then you will enjoy your work, 
and I hope that you meet with some regularity with your 
counterparts in the other two military departments, so you can 
share the experiences that each of you are having.
    There are, and there should be, certain individualities to 
the departments. But in the area of financial management, to 
the extent to which you all can have some parallelism, I think 
it makes it easier for those of us here in Congress in our 
oversight responsibility to monitor the areas for which you 
have responsibility.
    Mr. Montelongo. Yes, sir. If confirmed, I am very much 
looking forward to that.
    Senator Warner. Good. Thank you. Again, thank you for your 
public service.
    Mr. Brown, when we had an opportunity to visit here in my 
office, I stressed with you the importance of overseeing the 
procedure by which officers are promoted, and as well as the 
senior enlisted, because therein is the core of the military 
services.
    It has been my experience that all they ask for is fairness 
and to have uniformity; in other words, that each are treated, 
depending on their background and accomplishments and so forth, 
but there is clear understanding to guide them through their 
career patterns, hopefully 20 years plus.
    What are the criteria by which the President and those 
beneath him pick officers for promotions? That procedure has to 
be sacrosanct. It has to be fair, and no real or perceived 
perception that there is anything other than fairness to every 
officer and senior enlisted. Do you understand that, do you 
not?
    Mr. Brown. Yes, Senator, and I could not agree with you 
more.
    Senator Warner. You basically agree. Our committee, the 
Chairman and I, these many years we have been together, we 
carefully look at the recommendations by the President, 
forwarded by the service secretaries for promotion. There are 
times when we have to give the closest examination to 
individual persons, because in the course of their career, they 
have been involved in incidents which bear upon our decision 
making as to whether or not we give it advise and consent 
favorable or withhold it for individuals. It is not an easy 
task.
    Just this morning I dealt with one--or last night. I do not 
know. We work around the clock here. But we have to look at 
those cases.
    So first, I want your commitment that you will provide 
Congress with information relating to those individuals where 
that information could be viewed as adverse to their promotion. 
Even though it is a decision of the service secretary to 
include them on the list for promotion that comes to Congress, 
we must make our own separate and independent evaluation.
    Now, do you commit to do that?
    Mr. Brown. Yes, Senator. I have an advisory role in this 
with regards to the Secretary, but I can assure you I will do 
all in my power to make sure that you get the information you 
need.
    Senator Warner. I would hope that Secretary Abell, who was 
on our staff for many years in the Armed Services Committee, a 
highly respected individual now in office over there, would 
early on bring together persons in your position, if confirmed, 
and I expect you will be, and get a uniformity among the 
military departments on how to keep Congress informed in a 
timely fashion.
    There is someone in the audience who can communicate with 
him very quickly on that subject. [Laughter.]
    Mr. Brown. Yes, Senator.
    Senator Warner. Dr. Cambone, I hope the others here today 
recognize that this is an opportunity for us to discuss policy 
issues relating to the security interests of this nation abroad 
as we have one here who is eminently qualified to take on his 
position and who will be very integral, not only within the 
Department of Defense, but with his colleagues and associates 
and potentially the State Department, but other departments and 
agencies, CIA, but this committee follows very closely the 
policy decisions by administrations on various sections of the 
world.
    I come to the subject of North Korea. I frankly think that 
former Secretary of Defense Perry, who came before this 
committee on the issue of his work on behalf of the previous 
administration towards the framework in North Korea, did a 
wonderful job. I hope you will familiarize yourself with his 
work, as you undertake yours.
    I believe now our administration is going to take steps to 
build on that framework. Am I not correct in that, Doctor?
    Dr. Cambone. Yes, sir.
    Senator Warner. Also, China/Taiwan is always an issue that 
is just beneath the surface and can flare up for various 
reasons.
    We want to enforce the law of our land, this committee 
does, with respect to issues as they may arise on that theater 
of operations, but I urge that you spend time regularly on this 
subject and to hear out both sides as issues arise with regard 
to that sensitive part of the world.
    Dr. Cambone. Yes, sir.
    Senator Warner. We certainly do not want to see open 
conflict.
    Dr. Cambone. No, sir.
    Senator Warner. We must take every step. I have urged those 
both in China and Taiwan to use carefully selected, but 
cautious, rhetoric, because sometimes rhetoric can trigger 
situations.
    I think the package that the President has set up for the 
additional arms to--we have an obligation under the law of our 
land to help Taiwan maintain sufficient arms by which they can 
protect their freedom and democracy.
    Dr. Cambone. Yes, sir.
    Senator Warner. Likewise India/Pakistan, almost like a 
volcano, it is quiet and then it will flare up. Therein are 
weapons possessed by both that can spread any conflict way 
beyond the geographic boundaries of those countries.
    Likewise, we see Indonesia, a very sensitive situation in 
Indonesia right now. We have to monitor that. I think the 
administration has recently decided to restore some military-
to-military contact with Indonesia.
    There is always risk associated with that. But I think 
history has shown through the years that our Nation is reaching 
out to young officers who some day become heads of state and 
government, reaching out so that they can learn and understand 
the fundamentals of democracy that is in our Nation, even 
though it is not practiced in their homelands.
    Human rights, how we treat that subject here in our Nation 
gives them some incentive, I think, to go back to their 
respective nations and work to achieve many of the things that 
we have in this country and all too often take for granted.
    I wonder if you have any comment on any of those four 
regions that you wish to put in today's record.
    Dr. Cambone. It is quite a list, sir. I would first like to 
say that I am grateful for your wise counsel on this. All four 
of those regions are, as you suggest, subject to eruptions 
sometimes unpredictably.
    As you well know, the administration has decided to build 
on the work on North Korea.
    The China/Taiwan issue, as you say, is one that is volatile 
and can be affected by the way in which we talk about it. 
Therefore, if confirmed, I will take your sound advice on being 
very careful on how one speaks to that.
    India and Pakistan continue to evolve and will continue to 
evolve in ways that we need to be careful to monitor and not to 
unconsciously and inadvertently incite one side or the other to 
do things.
    Your words on the training of foreign officers, whether it 
be Indonesia or any other country, are well placed.
    During my time at the National Defense University, I ran 
into many a chief of staff for foreign countries who had had 
the opportunity to train in one fashion or another with the 
United States troops and to, in fact, be educated here in the 
United States.
    That is a very valuable part of our outreach programs and 
of our military-to-military contacts, and something that we 
need to continue with, with some vigor.
    Senator Warner. I thank you very much, Dr. Cambone.
    Chairman Levin. Dr. Cambone, I believe you were the Staff 
Director of the Commission to Assess the Ballistic Missile 
Threat to the United States.
    Dr. Cambone. I was, sir.
    Chairman Levin. Now, did that commission make any 
recommendation relative to deployment of a ballistic missile 
defense?
    Dr. Cambone. No, sir, it did not.
    Chairman Levin. Just one other last question for Mr. Brown. 
We just received a report from the Inspector General of the DOD 
concluding that the Army has not yet fully incorporated the 
Gulf War nuclear, biological, and chemical lessons learned, 
which were identified by the Office of the Special Assistant 
for Gulf War Illnesses, Medical Readiness, and Military 
Deployments into its doctrine, training, organizational 
structure, leadership development, material policies. So are 
you familiar with that report?
    Mr. Brown. No, Mr. Chairman, I am not familiar with the 
report.
    Chairman Levin. OK. Would you become familiar with it on 
your confirmation and make the implementation of these lessons 
learned a high priority for the Department?
    Mr. Brown. If confirmed, I will definitely do that.
    Chairman Levin. Thank you, all. I also want to thank your 
families and particularly, if I can single out your children. 
They have been absolutely wonderful observers here, incredibly 
patient. I wish I were as well behaved at their age, as they 
are. They are real testaments to their parents.
    We congratulate you all and, again, thank your families for 
the support which they have given you.
    We will stand adjourned.
    [Whereupon, at 12:01 p.m., the hearing was adjourned.]

    [Prepared questions submitted to Dionel M. Aviles by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   June 21, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Dionel M. Aviles.
cc: Senator John Warner,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes. The establishment of the combatant commands, the 
delineation of responsibilities, and most importantly, the focus on 
joint service operations and integration outlined in the Department of 
Defense Reorganization Act of 1986 has enhanced the readiness and 
warfighting capabilities of the U.S. armed forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been accepted and implemented. 
They have clarified the responsibilities and authorities of the 
Secretary of Defense, the Secretaries of the Military Departments, the 
Chairman of the Joint Chiefs of Staff, the Service Chiefs and the 
Combatant Commanders. As a result of these reforms, the effectiveness 
of our joint warfighting forces has improved.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I consider the most significant value of these reforms to 
be an improvement in joint warfighting capabilities. I believe our 
military is now stronger and more effective because the our services 
can work better together.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate?
    Answer. I am unaware of any current proposals to amend the 
Goldwater-Nichols Act. If confirmed, I will work with the Secretary of 
the Navy to determine the requirement for any legislative proposals.
    Question. If so, what areas do you plan to address in these 
proposals?
    Answer. As I am unaware of any legislative proposals, it would be 
premature to offer any thoughts on the question at this time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy (Financial Management)?
    Answer. If confirmed, I will be responsible for advising the 
Secretary of the Navy on financial management matters and for directing 
and managing all financial activities and operations of the Department 
of the Navy. I will also be responsible for supervising the Naval 
Center for Cost Analysis, which performs independent cost analysis and 
cost estimating functions for the Secretary of the Navy.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my background makes me qualified to serve in the 
capacity as Assistant Secretary of the Navy (Financial Management and 
Comptroller). I have worked on many different aspects of defense 
programs and have gained a thorough understanding of the Department of 
Defense, executive branch and congressional budget process. Having 
served as a budget examiner in the Office of Management and Budget and 
as a Professional Staff Member on the House Armed Services Committee, I 
believe that, if confirmed, I would bring a solid foundation from which 
to advise effectively the Secretary of the Navy on financial management 
matters.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Navy (Financial Management)?
    Answer. While I have relevant experience relevant to the position, 
education is a life long and continuing process. If confirmed, I will 
continue to learn as much about the position and the issues and 
challenges facing the Department of the Navy so that, if confirmed, I 
will be better able to carry out the duties more about the Department 
and the duties of the Assistant Secretary of the Navy (Financial 
Management and Comptroller).
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary England would prescribe for you?
    Answer. If confirmed, I will be responsible to Secretary England 
for overall financial management issues and Department of the Navy 
resources. I will also be charged with carrying out the 
responsibilities pursuant to 10 U.S.C. Sec. 5025.
    Question. In carrying out your duties, how will you work with the 
Secretary of the Navy; the Under Secretary of the Navy; the Under 
Secretary of Defense (Comptroller); and the Assistant Secretaries of 
the Army and the Air Force for Financial Management?
    Answer. If confirmed as the Assistant Secretary of the Navy 
(Financial Management and Comptroller), I will be the principal 
assistant and advisor to the Secretary of the Navy on fiscal and 
budgetary matters. The Assistant Secretary (Financial Management and 
Comptroller) also performs such other duties as the Secretary may 
prescribe.
    If confirmed as the Assistant Secretary of the Navy (Financial 
Management and Comptroller), I will be the principal assistant and 
advisor to the Under Secretary of the Navy on fiscal and budgetary 
matters. The Assistant Secretary (Financial Management and Comptroller) 
also performs such other duties as the Under Secretary may prescribe.
    In the role of Assistant Secretary of the Navy (Financial 
Management and Comptroller), I will, if confirmed, work closely with 
the Under Secretary of Defense (Comptroller) in the development and 
execution of the budgetary and fiscal policies and initiatives of the 
President, the Secretary of Defense, and the Secretary of the Navy.
    If confirmed, I will work closely with the Assistant Secretaries of 
the Army and Air Force for Financial Management and Comptroller to 
support the efforts of the Secretary of Defense and the Under Secretary 
of Defense (Comptroller) to develop a productive working relationship 
and implement consistent budgeting and financial management policies as 
appropriate.
         civilian and military roles in the navy budget process
    Question. What will the division of responsibilities be between the 
Assistant Secretary of the Navy (Financial Management) and the senior 
military officer responsible for budget matters in the Navy's Financial 
Management office (the Director of the Office of Budget and Fiscal 
Management) in making program and budget decisions including the 
preparation of the Navy Program Objective Memorandum, the annual budget 
submission, and the Future Years Defense Program?
    Answer. If confirmed as the Assistant Secretary of the Navy 
(Financial Management and Comptroller), I will have the responsibility 
and the authority for all budget matters within the Department of the 
Navy. The Naval officer who serves as the Director of the Office of 
Budget will serve under my direct supervision and will be responsible 
to me for the formulation, justification, and execution of the Navy 
budget.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Assistant Secretary of the Navy (Financial 
Management)?
    Answer. I am not completely aware of all the challenges that will 
face the next Assistant Secretary of the Navy (Financial Management and 
Comptroller), but I believe that providing adequate resources for the 
Navy's warfighting priorities and ensuring the availability of 
accurate, reliable and timely financial management information will be 
significant challenges. If confirmed, I will evaluate these challenges 
and attempt to address them.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller), the Secretary of the Navy, the Chief of Naval 
Operations and the Commandant of the Marine Corps to ensure that 
sufficient resources are allocated for warfighting priorities and 
efforts to ensure the availability of useful financial management 
information are undertaken.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Navy 
(Financial Management)?
    Answer. I believe the availability of accurate, reliable and timely 
financial information is perhaps the most serious issue today in the 
performance of the duties of the Assistant Secretary of the Navy 
(Financial Management and Comptroller). I am concerned that financial 
management systems may not consistently provide needed information.
    Question. What management actions and time-lines would you 
establish to address these problems?
    Answer. If confirmed, I will study this issue and then develop 
actions and time-lines, as appropriate.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Assistant Secretary of the Navy 
(Financial Management)?
    Answer. If confirmed, my broad priorities will include improving 
the quality of financial management information for both budget 
formulation, budget execution and day-to-day decision making. Another 
priority will be modernization of financial management systems and 
processes to ensure that accurate information is available in a timely 
manner.
                            advance billing
    Question. In recent years the Navy has had to resort to advance 
billing of customers for industrially funded work in order to keep cash 
in its working capital funds above minimum levels more frequently and 
extensively than the other military departments.
    What are your views on the practice of advance billing and what is 
your assessment of the Navy's ability to manage the cash balance of its 
working capital fund?
    Answer. Generally, working capital funds are designed to ensure 
sufficient funds are available to cover the cost of operations. The 
practice of advance billing, the billing of customers in advance of the 
provision of goods or services, should only be used under exceptional 
circumstances. If confirmed, I will review current processes and the 
Department of the Navy's ability to manage the cash balances of the 
working capital fund.
                    budgeting for flying hour costs
    Question. In recent years both the Navy and the Air Force budgets 
have consistently underestimated the cost of carrying out their planned 
training for aviation units, that is, their flying hour costs. The most 
frequently cited reasons for this are the increasing hourly cost to 
operate older aircraft and a budget process that does not adequately 
project and budget for likely cost increases above the most recent data 
on actual costs incurred.
    What are your views on the reasons for the consistent underfunding 
of flying hour costs and the steps that should be taken to correct it?
    Answer. I do not have adequate experience to comment on reasons for 
underfunding of flying hour costs. If confirmed, it will be my 
intention to work with appropriate Department of the Navy staff to 
ensure readiness requirements are adequately identified.
                       navy-marine corps intranet
    Question. Last year Congress became concerned that the Navy was 
embarking on a major acquisition program, the Navy-Marine Corps 
Intranet (NMCI), for which no funds were identified in the budget and 
with no adequate process in place to identify to Congress how funds 
appropriated for other programs would be used to fund this program.
    If confirmed, will you ensure that the future Navy budgets identify 
the funding needed for this program?
    Answer. If confirmed, it will be my intention to ensure visibility 
of the funding for this program in the Department's budget.
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and initiatives the Department and its components 
are undertaking to correct these deficiencies, financial data continues 
to be unreliable.
    What do you consider to be the top financial management issues to 
be addressed by the Department of the Navy over the next 5 years?
    Answer. I believe one of the top financial management issues of the 
Department of the Navy, or indeed any of the services, is the need for 
consistent, accurate, and timely financial information for decision 
makers. To provide accurate information, the Department of the Navy 
must have financial management systems that are both capable of 
producing this information and are compliant with Federal standards and 
controls. To support the timely delivery of this information, the 
Department must have a reliable, technologically sound infrastructure 
that links either transaction-level or aggregated information to the 
decision maker. If confirmed, I will make this a goal.
    Question. How do you plan to provide the needed leadership and 
commitment necessary to ensure results and improve financial management 
in the Department of the Navy?
    Answer. If confirmed, I intend to make the improvement of financial 
management in the Department of the Navy, particularly in terms of the 
quality and timeliness of financial information, one of my highest 
priorities. I intend to enlist the support of appropriate personnel to 
accomplish this.
    Question. What are the most important performance measurements you 
would use to evaluate changes in the Department of the Navy's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and its anticipated results are being achieved?
    Answer. If confirmed, I will enlist the support of senior 
Department of the Navy leadership to establish logical, useful, and 
relevant performance measures. This effort would be designed to ensure 
the necessary auditing conditions of completeness, existence, and 
proper valuation are achieved--resulting in consistent, accurate, and 
timely information for decision makers.
              compliance with chief financial officers act
    Question. The Chief Financial Officers Act requires the annual 
preparation and audit of financial statements for Federal agencies. 
However, the DOD Inspector General and GAO's financial audit results 
have continually pointed out serious internal control weaknesses 
concerning hundreds of billions of dollars of material and equipment, 
as well as billions of dollars of errors in Department's financial 
records.
    In your view, is the Navy capable of meeting the requirements 
imposed by the Chief Financial Officers Act? If not, please describe 
the actions you think are necessary to bring the Navy into compliance 
and the extent to which such actions are the responsibility of the 
Assistant Secretary of the Navy (Financial Management) or other 
officials in the Department of the Navy or the Department of Defense.
    Answer. I understand the Department of the Navy is not currently 
able to meet the requirements imposed by the Chief Financial Officers 
Act. If confirmed, one of my top priorities will be to take necessary 
actions to ensure that the Department of the Navy meets the 
requirements of the Chief Financial Officers Act consistent with the 
goals set forth by the Under Secretary of Defense (Comptroller). It 
would be premature for me to comment on the actions necessary until I, 
if confirmed, have an opportunity to assess fully the current 
situation.
            standardization within the department of defense
    Question. Many of the financial management initiatives currently 
underway within the Department of Defense are centrally controlled by 
the Office of the Secretary of Defense, and most observers believe that 
financial management practices should be standardized throughout the 
Department of Defense to the maximum extent possible.
    What role do you believe the military departments should have in 
the decision-making process when DOD-wide financial management 
decisions are made?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller) and the Secretary of the Navy in the decision-
making process to ensure the Department of the Navy's perspective is 
considered in the decision making process affecting financial 
management issues.
    Question. What are your views on standardizing financial management 
systems (including hardware and software) and financial management 
practices across the Department of Defense?
    Answer. I fully support standardization where it makes sense to do 
so. The vastness of the information technology infrastructure of the 
Department of Defense and the Department of the Navy and the many 
internally and externally driven initiatives being undertaken to 
improve financial management may not lend themselves to a ``one size 
fits all'' solution in all cases. What is important is for the 
financial and feeder systems, as well as financial management practices 
and processes, to provide desired information accurately and 
consistently.
    Question. Are there areas where you believe the Department of the 
Navy needs to maintain unique financial management systems?
    Answer. It would be premature for me to provide comment on any one 
specific area within the Department of the Navy where unique systems 
may be appropriate. However, as I mentioned above, a ``one size fits 
all'' approach to standardization of systems and practices may not make 
good business sense in some situations.
             responsibility for accuracy of financial data
    Question. When the Department of Defense, through the Under 
Secretary of Defense (Comptroller) or the Defense Finance and 
Accounting Service, prepares financial or budget information for 
submission to the Office of Management and Budget or Congress, who will 
be responsible for the accuracy of such information concerning the 
Navy?
    Answer. If confirmed, I will be responsible for the accuracy of the 
Department of the Navy's finance, budget and accounting information 
provided to the Department of Defense and the Office of Management and 
Budget.
    Question. Who will be responsible for ensuring that the financial 
management and accounting systems of the Department of the Navy have 
the interfaces and internal controls needed to produce timely and 
accurate financial information?
    Answer. If confirmed, it will be my responsibility to ensure that 
the financial management and accounting systems of the Department of 
the Navy have the interfaces and internal controls needed to produce 
timely and accurate financial information.
                     financial management training
    Question. In response to the Defense Acquisition Workforce 
Improvement Act of 1991, DOD has taken action directed at improving the 
professionalism of its acquisition workforce. This was brought about as 
a result of the need to better ensure that DOD's acquisition workforce 
was well-versed in the rapidly changing technical skills needed to keep 
abreast of acquisition trends. A key part of the effort to upgrade the 
professionalism (technical currency) of DOD's acquisition workforce was 
the requirement that each acquisition official receive a minimum of 80 
hours of continuous learning every 2 years. While DOD has stated that 
this should be a goal for financial management personnel, it has not 
made it a requirement because of uncertainties over whether necessary 
funding would be available.
    What are your views on the merits of establishing a requirement 
that all Navy financial management personnel receive a minimum of 80 
hours of continuous learning every 2 years?
    Answer. The field of financial management requires a high level of 
technical proficiency and currency. If confirmed, I will encourage 
Department of the Navy financial management professionals to pursue on-
going training opportunities through available certification programs 
and other professional training programs.
    Question. If confirmed, what actions would you take to ensure that 
the Navy's financial management personnel keep abreast of emerging 
technologies and developments in financial management?
    Answer. If confirmed, I intend to work with the Under Secretary of 
Defense (Comptroller) and the Secretary of the Navy to ensure that the 
Department of the Navy's financial management workforce is adequately 
trained. I will encourage Department of the Navy financial management 
personnel to take advantage of career planning and the existing 
financial management professional development opportunities.
                                  ppbs
    Question. Recently, a commission, which included a number of former 
Defense officials and former Comptroller General Bowsher, asserted that 
the Department's Planning, Programming, and Budgeting System (PPBS) is 
no longer functioning effectively.
    What are your views on the PPBS process? Are there any changes that 
you would recommend?
    Answer. I believe that the planning, programming, and budgeting 
process must facilitate top-level decision making efforts and address 
major resource issues. If confirmed, I will work with the Under 
Secretary of Defense (Comptroller) and the Secretary of the Navy to 
evaluate the sufficiency of the current system and make recommendations 
for improvement if warranted. I do not currently have any changes which 
I would recommend.
             government performance and results act (gpra)
    Question. If confirmed as Assistant Secretary of the Navy 
(Financial Management and Comptroller), what would your 
responsibilities be with respect to the requirements of the GPRA to set 
specific performance goals and measure progress toward meeting them?
    Answer. Both the Secretary of the Navy and the Secretary of Defense 
have made it clear that they want the Department to operate more like a 
business and to do so requires the establishment of performance-based 
measures and metrics. If confirmed, I will support this effort.
    Question. What additional steps can the Navy take to fulfill the 
goals of the GPRA to link budget inputs to measurable performance 
outputs?
    Answer. If confirmed, it will be my intent to support the 
development of meaningful performance metrics and integrate them into 
the budgeting and decision making process.
                          incremental funding
    Question. In your view, what are the likely benefits or advantages 
of incremental funding of naval vessels?
    What are the likely costs or disadvantages of such funding?
    How do you weigh these competing costs and benefits and what 
approach do you believe the Navy should take toward incremental funding 
of naval vessels?
    Answer. The Secretary of Defense has testified before the Senate 
Armed Services Committee that, he believes in his personal view, we are 
probably not procuring enough ships for the Navy and we should be 
procuring more ships. Careful consideration should be given to 
innovative alternate methods of financing shipbuilding, such as 
incremental funding, while seeking to ensuring the Navy gets the best 
value for each investment dollar spent. If confirmed, I will evaluate 
the potential advantages and disadvantages of investment financing 
proposals and make appropriate recommendations to the Secretary of the 
Navy. I look forward to working with the committee on this matter.
                         advance appropriations
    Question. If such an approach were to be available in the future, 
what criteria should the Navy use in seeking advance appropriations for 
a program?
    What do you believe would be the strengths and weaknesses of 
funding ships using advance appropriations?
    Have you seen any objective analysis of alternative shipbuilding 
funding mechanisms that demonstrate that advance appropriations would 
result in lowering unit costs of ships and/or be preferable to using 
multi-year procurement or any other approach?
    Answer. The Secretary of Defense has stated that he believes we 
should be procuring more ships. Careful consideration should be given 
to innovative methods of financing shipbuilding while seeking to get 
the best value for the money. I look forward to working with the 
committee on this matter. The Secretary of Defense has testified before 
the Senate Armed Services Committee that, in his personal view, we are 
probably not procuring enough ships for the Navy. Careful consideration 
should be given to alternate methods of financing shipbuilding, such as 
advance appropriations, while ensuring the Navy gets the best value for 
each investment dollar spent. If confirmed, I will evaluate the 
potential advantages and disadvantages of investment financing 
proposals and make appropriate recommendations to the Secretary of the 
Navy.
                        savings from competition
    Question. The Navy and other military departments have 
substantially increased the number of public-private competitions in 
recent years in order to achieve greater efficiency and effectiveness 
while reducing costs. Studies have shown that the military departments 
save money regardless of which side wins the competition.
    Do you believe that decisions on whether to outsource work 
currently performed by government civilians should be made through 
public-private competition?
    Answer. If confirmed, I will work with the Department of Defense 
and the Department of the Navy staff to evaluate the effectiveness of 
public-private competitions.
    Question. What steps should the Navy undertake to measure the 
actual savings achieved after such competitions?
    Answer. If confirmed, I will review the metrics currently in place 
to measure savings achieved from competition and determine what could 
be done to improve visibility of these savings.
    Question. What are your views on the practice of including 
``funding wedges'' in the budget that anticipate savings from public-
private competition or other efficiencies prior to those savings 
actually being achieved?
    Answer. Outyear ``funding wedges'' in a budget are estimates that 
represent current policy assumptions. If confirmed, I will evaluate the 
use of such ``funding wedges'' in the budget.
                         working capital funds
    Question. Are there any changes you would recommend to the policies 
governing working capital funds in the Department of the Navy?
    Answer. If confirmed, it would be my intention to carefully review 
the policies associated with the working capital fund and determine 
what, if any, changes would be desired.
    Question. Do you believe the scope of activities funded through the 
working capital funds should be increased or decreased?
    Answer. If confirmed, I will review the scope of activities funded 
through the working capital fund.
    Question. The Navy has established a pilot program at the Pearl 
Harbor Naval Shipyard. The primary purpose of this pilot program is to 
increase efficiency by combining the military and civilian maintenance 
workforces more closely. This pilot program also moved the shifted 
funding for maintenance at this shipyard from the working capital fund 
via direct appropriations.
    What are your views on removing depot maintenance for some or all 
of the public depots from the working capital funds?
    Answer. It would be premature for me to comment on removing depot 
maintenance for some, or all, of the public depots from the working 
capital fund. If confirmed, I will review the appropriateness of 
financing methods for various activities.
                  oversight of special access programs
    Question. As the Assistant Secretary of the Navy (Financial 
Management), will you be responsible for the financial management of 
special access programs in the Navy?
    Answer. If confirmed, yes. Yes. It is my understanding that the 
Assistant Secretary of the Navy for Financial Management is responsible 
for oversight of the financial management structure for Department of 
the Navy special access programs.
    Question. Are you satisfied with the oversight standards for the 
financial management of special access programs? Are these standards as 
stringent as those for other programs?
    Answer. I am not fully aware of the oversight standards for special 
access programs. If confirmed, I will review these standards and 
examine this area.
    Question. Does the Office of the Assistant Secretary of the Navy 
(Financial Management) have sufficient cleared personnel and authority 
to review special access programs?
    Answer. I am not aware of the status of cleared personnel. If 
confirmed, I will review these requirements.
                   legislative liaison responsibility
    Question. Under the current organization of the Navy, legislative 
liaison functions affecting congressional appropriations committees are 
performed by officers under the supervision and control of the Navy 
Comptroller.
    If confirmed, what would be your relationship with the Chief of 
Legislative Affairs regarding budgetary and appropriations matters?
    Answer. If confirmed, I would work closely with both the Chief of 
Legislative Affairs, as well as the Head, Navy Appropriations Matters 
Office on all matters germane to Congress.
    Question. What requirements or procedures, if any, would you put 
into place, if confirmed, to ensure that financial information is made 
available on an equal basis to authorization committees?
    Answer. If confirmed, it would be my intention to work with both 
sides of the Department of the Navy legislative liaison organizations 
to ensure financial management information is made available to the 
appropriate congressional committees.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy (Financial Management)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. As you may be aware, my colleague, Senator 
Byrd, has been very critical of the Department's financial management 
system. I am in full agreement with his assessment and hope that you 
and your counterparts will bring a new perspective on how to fix the 
system.
    Since you have had exposure to the financial management system 
during your tenure on the House Armed Services Committee, do you have 
any specific recommendations for improving the current financial 
management system?
    Mr. Aviles. I am aware of the criticism. This is an area that the 
Secretary of Defense and the Secretary of the Navy have listed as a top 
management priority, but the issue is more related to how the total 
enterprise is managed, rather than just the financial management 
system.
    Reengineering and integrating our business processes, where 
appropriate, will be critical to providing the visibility and 
accountability necessary to achieve the goal of clean, auditable 
financial statements.
    As the Secretary of the Navy's principal advisor on financial 
matters, if confirmed, I will work closely with the Under Secretary of 
Defense (Comptroller) and my counterparts in the other Military 
Departments to address these challenges.


    2. Senator Thurmond. The Department of Defense has established 2010 
as the goal to improve the quality of family housing. The principle 
vehicle to achieve this goal is the housing privatization initiative, 
which leverages private sector money to renovate and build military 
family housing.
    How do you evaluate the cost effectiveness of the privatization 
program?
    Mr. Aviles. I would measure the cost effectiveness using a total 
life cycle cost comparison between the cost of government ownership, as 
in a traditional family housing project, and any privatization 
proposal. In making such a comparison I would also try to take into 
consideration less quantifiable factors such as likely customer 
satisfaction.
                                 ______
                                 
    [The nomination reference of Dionel M. Aviles follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     June 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dionel M. Aviles of Maryland, to be Assistant Secretary of the 
Navy, vice Deborah P. Christie, resigned.
                                 ______
                                 
    [The biographical sketch of Dionel M. Aviles, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Dionel M. Aviles
    Dionel Aviles is currently a Professional Staff Member on the House 
Armed Services Committee for defense budget and financial management, 
Navy procurement, and Merchant Marine issues.
    Mr. Aviles was an Examiner at the Office of Management and Budget 
from 1991 to 1995. Before that, he was an Engineer at the Naval Sea 
Systems Command from 1990 to 1991. From 1988 to 1991 he was a Support 
Engineer with Advanced Technology, Inc. He served in the U.S. Navy from 
1983 to 1988 as a Surface Warfare Officer in various positions in both 
the operations and weapons departments.
    Mr. Aviles has earned a B.S. degree from the U.S. Naval Academy in 
1983 and an M.B.A. from George Washington University in 1993.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dionel M. 
Aviles in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Dionel M. Aviles.

    2. Position to which nominated:
    Assistant Secretary of the Navy (Financial Management and 
Comptroller).

    3. Date of nomination:
    June 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 23, 1961, Bryan, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Kimberly Lee Corbin.

    7. Names and ages of children:
    Thomas William Aviles (4 years old).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    George Washington University, 1991 to 1993, Master of Business 
Administration, December 1993.
    University of Maryland, 1989 to 1990, no degree granted.
    U.S. Naval Academy, 1979 to 1983, Bachelor of Science, Mechanical 
Engineering, May 1983.
    Texas A&M University, 1978 to 1979, no degree granted.
    Satellite High School, Satellite Beach, Florida, 1975 to 1978, High 
School Diploma.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Professional Staff Member, U.S. House of Representatives, Committee 
on Armed Services, Rayburn House Office Building, Washington, DC 20515. 
March 1995 to Present.
    Budget Examiner, Executive Office of the President, Office of 
Management and Budget, Washington, DC 20503. April 1991 to February 
1995.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Engineer, Department of the Navy, Program Executive Officer for 
Cruise Missiles and Unmanned Aerial Vehicles, Naval Air Systems 
Command, Arlington, VA 20361. January 1990 to April 1991.
    Naval officer, U.S. Navy, 1983 to 1988, U.S. Naval Reserve, 1988 to 
present.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval Academy Alumni Association (1983-present), 247 King 
Street, Annapolis, MD 21402; (410) 263-4448. Life Member--no offices 
held.
    Our Lady of the Fields Catholic Church (1995-present), 1070 Cecil 
Avenue, Millersville, MD 21108; (410) 923-3133. Parishoner--no offices 
held.
    Republican Party (1979-present), c/o Republican National Committee, 
310 First Street, SE, Washington, DC 20003; (202) 863-8500. Member--no 
offices held.
    National Rifle Association (1993--present), 11250 Waples Mill Road, 
Fairfax, VA 22030; (800) 672-3888. Life Member--no offices held.
    Navy Federal Credit Union (1979-present), P.O. Box 3000, 
Merrifield, VA 22119-3000; (703) 255-8760.
    Anne Arundel Fish and Game Conservation Association (1993-present), 
P.O. Box 150, Arnold, MD 21146; (410) 757-6800. Member--no offices 
held.
    United Services Automobile Association (1982-present), 9800 
Fredericksburg Road San Antonio, TX 78288; (800) 531-8111. Member--no 
offices held.
    Society of American Military Engineers (1988-present), 607 Prince 
Street Alexandria, VA 22314; (703) 549-3800. Member--no offices held.
    Reserve Officers Association (1995-present), One Constitution 
Avenue, NE Washington, DC 20002; (202) 479-2200. Life member--no 
offices held.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member of the Republican party. No offices held or services 
rendered during the last 5 years.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush for President Campaign (1999)--$1,000; Bush Gubernatorial 
Reelection Campaign (1998)--$500.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Navy Commendation Medal (2 awards).
    Navy Achievement Medal (2 awards).
    National Defense Service Medal.
    Navy Expert Pistol Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Dionel M. Aviles.
    This 18th day of June, 2001.

    [The nomination of Dionel M. Aviles was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                              ----------                              

    [Prepared questions submitted to Reginald Jude Brown by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   June 21, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Reginald J. Brown.
cc: Senator John Warner,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been fully implemented and 
that they have greatly clarified the responsibilities and authorities 
of the Secretary of Defense, the Secretaries of the Military 
Departments, the Joint Chiefs of Staff, and the Chairman of the Joint 
Chiefs. The effectiveness of our joint warfighting forces, especially 
with respect to communication, interoperability, training, and joint 
operations, has improved as a result of these reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. In my view Goldwater-Nichols defense reforms initiated a 
cultural change within the military services that reflected an emerging 
understanding of the importance of joint training and joint operations 
in defense preparedness and modern warfare. Key aspects of those 
reforms include strengthening civilian control, and streamlining the 
operational chain of command, improving efficiency in the use of 
defense resources, improving the military advice provided to the 
National Command Authorities, and joint officer management.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am unaware of any proposals to amend Goldwater-Nichols. 
If confirmed, I will be in position to better understand and assess 
whether such proposals would be warranted. The implementation of the 
Goldwater-Nichols reforms has enhanced the ability of the services to 
act quickly and jointly.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Manpower and Reserve Affairs?
    Answer. I understand that my principal duty, if confirmed, will be 
the overall supervision of manpower and Reserve component affairs 
within the Department of the Army.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe that my military background and diverse 
experience in the private sector have prepared me to meet the 
challenges of this office. After graduating from West Point, I served 
for over 10 years as a regular Army officer, including tours of duty in 
Vietnam and post-war Korea. In civilian life, I was the Associate 
Director of the Defense Manpower Commission and Executive Director of 
the President's Commission on Military Compensation. Service on these 
Commissions has given me an excellent perspective on enduring manpower 
issues relating to recruitment, retention, force structure, and 
utilization. As Director of Administration in two private sector firms, 
I have had responsibility for human resources programs in the private 
sector. I believe that my diverse experience and knowledge of human 
resources issues will enable me, if confirmed, to effectively discharge 
the duties of this important position during this period of 
transformation.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army for Manpower and Reserve Affairs?
    Answer. I believe that I have the requisite experience, knowledge, 
and leadership to serve in this position. If confirmed, I will 
extensively study the vast array of issues that I would be responsible 
for as the Assistant Secretary of the Army for Manpower and Reserve 
Affairs.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary White would prescribe for you?
    Answer. If confirmed, I believe the Secretary of the Army will 
prescribe specific duties for me that are consistent with my background 
and experiences and that will support his efforts to ensure that the 
Department of the Army successfully accomplishes the many demanding and 
varied missions entrusted to it.
    Question. In carrying out your duties, how do you expect to work 
with the following: the Under Secretary of Defense for Personnel and 
Readiness; the Assistant Secretary of Defense for Force Management 
Policy; the Assistant Secretary of Defense for Reserve Affairs; the 
Assistant Secretary of Defense for Health Affairs; the Army Deputy 
Chief of Staff for Personnel; and the Chief, Army Reserve.
    Answer. Acting on behalf of the Secretary of Defense, the Under 
Secretary of Defense for Personnel and Readiness performs 
responsibilities that require, from time to time, the issuance of 
guidance to the military departments. If confirmed, I will communicate 
openly and directly with the Under Secretary of Defense for Personnel 
and Readiness in articulating the views of the Department of the Army. 
I will work closely with the Under Secretary of Defense for Personnel 
and Readiness to ensure that the Department of the Army is administered 
in accordance with the guidance and direction issued by the Office of 
the Secretary of Defense.
    The Assistant Secretary of Defense for Force Management Policy has 
functional responsibilities that require, from time to time, the 
issuance of force management guidance to the military departments. If 
confirmed, I will establish a close, professional relationship with the 
Assistant Secretary of Defense for Force Management Policy and will 
communicate openly and directly in articulating the views of the 
Department of the Army and in ensuring that the Department of the Army 
is administered in accordance with the guidance promulgated by the 
Office of the Secretary of Defense.
    The Assistant Secretary of Defense for Reserve Affairs has 
functional responsibilities that require, from time to time, the 
issuance of Reserve component guidance to the military departments. If 
confirmed, I will establish a close, professional relationship with the 
Assistant Secretary of Defense for Reserve Affairs and will communicate 
openly and directly in articulating the views of the Department of the 
Army and in ensuring that the Department of the Army is administered in 
accordance with the guidance promulgated by the Office of the Secretary 
of Defense.
    The Assistant Secretary of Defense for Health Affairs has 
functional responsibilities that require, from time to time, the 
issuance of health affairs guidance to the military departments. If 
confirmed, I will establish a close, professional relationship with the 
Assistant Secretary of Defense for Health Affairs. I will communicate 
openly and directly in articulating the views of the Department of the 
Army and in ensuring that the Department of the Army is administered in 
accordance with the guidance promulgated by the Office of the Secretary 
of Defense.
    The Deputy Chief of Staff for Personnel formulates, manages, 
evaluates, and executes military personnel plans and programs for the 
Army for peacetime, contingency, and wartime operations. If confirmed, 
I will establish a close, professional relationship with the Deputy 
Chief of Staff for Personnel. I will communicate with him directly and 
openly as he performs his prescribed duties. I would expect that the 
Deputy Chief of Staff for Personnel and I would work together as a team 
on a daily basis.
    The Chief, Army Reserve is the principal advisor to both the 
Secretary of the Army and the Chief of Staff of the Army. The Assistant 
Secretary of the Army for Manpower and Reserve Affairs is the Secretary 
of the Army's designated Secretariat agent for dealing with Reserve 
matters relating to the Department of the Army. If confirmed, I will 
establish a close, professional relationship with the Chief, Army 
Reserve. I will communicate with him directly and openly as he performs 
his prescribed duties.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Assistant Secretary of the Army 
for Manpower and Reserve Affairs?
    Answer. The Department of the Army continues to face challenges 
manning the force. If confirmed, that will be a top priority for me. 
Training, quality of life, and Army integration will also be 
priorities. I cannot emphasize enough that the Army's people will 
always be my top priority.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Manpower and Reserve 
Affairs?
    Answer. In my view, the fundamental challenge facing the Assistant 
Secretary of the Army for Manpower and Reserve Affairs is to man the 
force to meet the challenges of the 21st century and Army 
transformation. I view recruiting and retaining the right men and women 
as a major challenge in the Army's drive to maintain readiness. While 
the Army continues to attract and retain high-quality recruits, 
challenges are still there, not the least of which is a robust economy 
with low unemployment. Similarly, retaining the right caliber of 
soldier in the appropriate grades and skills is becoming increasingly 
difficult, due, in part, to the increased frequency of deployments and 
the availability of private-sector opportunities.
    I believe a second major challenge is to ensure the well-being of 
the entire Army team, including active, Reserve, Guard, retirees, and 
veterans and the civilian workforce, and all family members. Ensuring 
the well-being of the team contributes to the four key institutional 
outcomes of performance, readiness, retention, and recruiting.
    Finally, among the major challenges I would face, if confirmed, is 
the need to foster and maintain an environment in which soldiers and 
civilian employees, regardless of gender, have a work environment free 
of discrimination and harassment, have assignments and advancement 
systems that, while responsive to the needs of the Army, are based on 
individual qualifications and performance, and have an equitable 
opportunity to succeed.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will forthrightly address these issues to 
ensure we are doing what we must. I will candidly assess our recruiting 
and retention posture and do my best to ensure we are not bearing 
unacceptable risk in these areas. I understand the importance of well-
being programs for all of our people (active, Guard, Reserve, 
civilians, retirees, veterans, and families) and will work to initiate 
or enhance programs of the type and quality most likely to support the 
Army's recruiting and retention needs. I will work closely with the 
entire Defense community to link all the legacy programs to the well-
being campaign plan. Legacy programs, such as Morale, Welfare and 
Recreation, family programs, and other Quality-of-Life programs will be 
integrated into the campaign. Finally, if confirmed, I will work to 
ensure that all of our people are treated with respect and dignity.
    Question. What do you consider the most serious problems in the 
performance of the functions of the Assistant Secretary of the Army for 
Manpower and Reserve Affairs?
    Answer. In addition to recruiting and retention, which I have 
discussed above, at this time, I consider continuing to improve the 
state of relations between the active component and the Reserve 
component as a primary goal. Over the past few years there has been 
dramatic improvement in this area, but there is still much to do to 
enhance active component/Reserve component integration.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I cannot at this time, specify a timetable or specific 
management action for addressing these matters. I know that, in each 
case, there are already actions underway that are intended to address 
these issues. It is my intention, if confirmed, to focus immediately on 
these matters, to review those actions that are underway, and to join 
with the other civilian leaders and with my counterparts in uniform to 
resolve them to the best of my ability.
                       officer management issues
    Question. We consider promotions to general officer ranks as 
identifying military officers for very senior positions that should be 
filled only by officers with the very highest moral and ethical values.
    Do you believe the officer corps has confidence in the integrity of 
the officer promotion system in the Army?
    Answer. Yes. Although some will always question the end-product, I 
believe that by and large the officer corps understands the rigor and 
fairness of the promotion board process.
    Question. What role would you, as ASA M&RA, expect to play in the 
officer promotion system?
    Answer. If confirmed, I see myself as the Army Secretariat official 
principally responsible for developing and overseeing the 
implementation of promotion policies that comply with the applicable 
statutes, Department of Defense directives, and Army regulations, and 
the principal adviser to the Secretary of the Army on these matters.
    Question. What role would you, as Assistant Secretary of the Army 
for Manpower and Reserve Affairs, expect to play in the general officer 
management nomination process?
    Answer. Again, if confirmed, I see myself in a policy making and 
advisory role within Army Secretariat.
    Question. If confirmed, what steps will you take to ensure that 
only the most highly qualified officers are nominated for promotion to 
general officer rank?
    Answer. If confirmed, I will review the current system to ensure 
that it is fair and advancing the most highly qualified officers. I 
also intend to work closely with the Deputy Chief of Staff for 
Personnel to ensure that we are implementing our system to meet these 
goals. If confirmed, I will also advise the Secretary of the Army as 
appropriate.
    Question. A recent study by the Army Training and Leader 
Development Panel concluded that the Army culture is out of balance and 
that there is widespread dissatisfaction among junior officers. 
Complaints about micro-management, diminished well-being, unbalanced 
life, the officer evaluation system, not training to standards, among 
others, raised serious questions about the morale of junior officers 
and the efficacy of efforts to improve the attractiveness of continuing 
service.
    What are your views about the validity and implications of this 
study?
    Answer. Since the Army Training and Leader Development Panel 
findings were based on over 13,000 survey responses, the validity of 
the report must be respected. Currently, it is my understanding that 
the Army has an Implementation Process Action Team reviewing the 84 
recommendations included in the panel report. The team is determining 
the implementation processes, as well as, the resourcing implications 
of each recommendation. The implications of the study are fairly 
straightforward. The senior leaders of the Army, civilian and military, 
must do what is necessary to fulfill the commitments we make to our 
young leaders. We must strive to provide them the requisite command 
climate and operating environment that allows them to develop skills 
within their chosen career fields, while providing a just opportunity 
for advancement.
    Question. If confirmed, how would you address the issues raised by 
the panel?
    Answer. The issues raised by the report are important. Some are 
serious policy issues. Some are simply a matter of leaders practicing 
effective leadership. If confirmed, I will address the policy issues at 
the Secretariat level, in coordination with the Army Staff, to find the 
correct implementation process.
                        protected communications
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes.
    Question. If confirmed, what actions will you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will be vigilant in ensuring that military 
members whose actions are protected by the act are not subject to 
reprisals or retaliation. I also understand that the current Department 
of the Army practice is to brief the requirements of the act to all 
prospective commanding officers and executive officers. If confirmed, I 
will ensure that emphasis on the act in the formal Army training 
courses will continue.
                            operating tempo
    Question. The services have been very concerned in recent years 
about the impact of the pace of operations, or OPTEMPO, on the quality 
of life of our people in uniform and specifically on their willingness 
to reenlist.
    If confirmed, what steps do you plan to take to address Army 
OPTEMPO concerns?
    Answer. I recognize the delicate balance between quality of life, 
retention and meeting the operational requirements of the National 
Command Authority. Though not completely familiar with all current 
issues of OPTEMPO, I believe that the Service Chiefs should manage 
personnel issues in regards to operational demands, in coordination 
with the Service Secretaries, the Joint staff, the Combatant Commanders 
and the Office of the Secretary of Defense. If confirmed, I will work 
with the Secretary of the Army to address the issues associated with 
OPTEMPO.
                        recruiting and retention
    Question. Recruiting and retention in the Army have improved 
significantly over the last year. Yet the Army continues to have 
shortages in critical specialties.
    What steps will you take, if confirmed, to assist in meeting the 
Army's recruiting and retention goals?
    Answer. I understand that the Army has made progress in the areas 
of recruiting and retention in the past few years to include meeting 
its end strength and recruiting goals for all three components last 
year. If confirmed, I will focus on continuing the momentum of the 
initiatives already begun and will look to introduce additional state-
of-the-art best business practices to ensure that we have the right 
people in the right place at the right time.
    Question. Recent emphasis regarding recruiting and retention has 
been focused on the active component. The Reserve components are facing 
even greater challenges in recruiting and retention.
    What steps will you take, if confirmed, to assist the Reserve 
components in achieving their recruiting and retention goals?
    Answer. The Reserve components--National Guard and U.S. Army 
Reserve--are an integral part of America's Army. I believe that active-
Reserve integration must include equity of emphasis across the 
components and will work with the Chief, Army Reserve, and the 
Director, National Guard Bureau, to best meet their recruiting and 
retention needs along with the active component.
    Question. In a recent hearing before the Personnel Subcommittee, 
front line recruiters discussed impediments to their efforts, including 
the inability to gain access to high schools and student directories.
    Do you support recent legislation of the Fiscal Year 2001 National 
Defense Authorization Act that aimed at alleviating this impediment?
    Answer. I am supportive of section 563. If confirmed, I will ensure 
that the Army implements this important legislation effectively and 
that the whole Army--active and Reserve--shares in the effort in 
coordination with the Office of the Secretary of Defense.
    Question. If confirmed, what actions would you take to ensure that 
in the year ahead effective notification about this provision of law is 
provided to local educational agencies?
    Answer. I believe that we must work congenially and cooperatively 
with local educational agencies across the Nation to ensure their 
understanding of the role of the military in maintaining national 
security, its importance to communities and national defense, and the 
opportunities for education and growth it affords young people. 
However, if confirmed, I will support those procedures in place to 
notify local educational agencies that are in breach of the law.
                           reserve components
    Question. With the extensive commitment of the active components, 
the Reserve components have been called on to supplement the active 
components on a more frequent basis. The increased deployments are 
stressing the relationship between the reservists and his or her 
civilian employer. Although in periods of low unemployment this may not 
be a problem, as unemployment rises the employers may not be as 
accommodating to the absentee reservist.
    What is your position on the current program to ensure reservists 
jobs are protected during periods of extended or multiple military 
call-ups?
    Answer. I am fully supportive of the Federal laws that are 
currently in place such as the Soldiers and Sailors Civil Relief Act 
and the Uniformed Services Employment and Reemployment Rights Act that 
provide protections for our mobilized and deploying soldiers. We must 
also encourage states to enact similar legislation so that all 
reservists are completely protected. I feel that it is very important 
to continue to partner with the National Committee for Employer Support 
of the Guard and Reserve. The Department must duly recognize that 
employers are vital to our mission accomplishment.
    Question. What impact would you expect the high Reserve personnel 
tempo is having on recruiting and retention?
    Answer. It is my understanding that, on the whole, recruiting and 
retention levels have remained constant as the Reserve component 
supported the three Presidential Reserve call-ups. I anticipate that 
this trend will continue. In fact, both Reserve Chiefs have recently 
reiterated the same message. If confirmed, I will continue to monitor 
``stress levels'' within the Reserve components to ensure that the 
possible negative effects of high PERSTEMPO are minimized.
              recruiting of military health care providers
    Question. The health benefit is a significant component of the 
military compensation package. The Department of Defense utilizes a 
combination of bonuses and incentives to recruit and retain health care 
professionals to provide care throughout their military medical assets. 
The last legislative revision to those bonus amounts occurred some 10 
years ago. Given the inherent reduction in buying power of those 
programs over time, Congress directed the Department of Defense to 
submit a legislative plan to reinvigorate those bonus programs.
    What are your views on these programs and will you commit to a 
close examination and development of recommendations on these programs 
as a priority if you are confirmed?
    Answer. I believe that use of special pays to recruit and retain 
highly skilled professionals is necessary and appropriate. But I also 
believe that special pays are not the only answer. I understand that 
the study to which you refer is partially completed and will be 
delivered to you in its final form by Health Affairs in October of this 
year. If confirmed, I look forward to evaluating the recommendations 
contained in the report with my Army subject matter experts and 
financial analysts. I will indeed work with Health Affairs and Congress 
on implementing any practical and viable changes for not only the 
active component health professionals, but I am also greatly interested 
in the bonuses and educational incentives utilized by the Army Reserve 
components to recruit and retain health care professionals. Since the 
Reserve components make up some 70 percent of the Army medical 
department, I also intend to evaluate the programs that affect them, if 
I am confirmed.
                  management of deployments of members
    Question. Increasing operational demands on military personnel 
resulted in enactment of section 991 of Title 10, United States Code, 
and section 435 of Title 37, United States Code. Those provisions 
require the services to manage the deployments of member and, if 
operational necessity so dictates, to pay per diem compensation to 
members whose deployed period exceed prescribed limits. Additionally, 
each Service Secretary is required to establish a system for tracking 
and recording the number of days that each member of the armed forces 
under the jurisdiction of the Secretary is deployed.
    Do you support the statutory framework set forth in the sections 
cited above?
    Answer. Yes.
    Question. Do you believe any modifications to the law are 
necessary?
    Answer. Not at this time.
    Question. What is your understanding of the ability of the Army to 
comply with these statutes and implement the prescribed tracking and 
recording system?
    Answer. It is my understanding that the Army has been tracking and 
recording the deployed periods of its personnel since the start of this 
fiscal year. This information has recently been available to soldiers 
on their monthly Leave and Earnings Statements.
                       homosexual conduct policy
    Question. Do you support the current Department of Defense 
Homosexual Conduct Policy?
    Answer. Yes, I do. I believe that the current policy implements the 
requirements of public law in a manner that recognizes the private 
nature of sexual orientation while simultaneously providing commanders 
with the tools they need to enforce standards of conduct upon which the 
cohesion of our force depends.
    Question. If confirmed, do you plan to make any changes to the 
basic policy or its implementation? If so, what changes will you 
propose?
    Answer. I feel that the basic policy is based in public law. The 
implementation of this policy is currently consistent with the law and 
I see no need for change. If confirmed, I will continue to promote the 
Army's two current emphases; educating all soldiers on the provisions 
of the law and policy and holding commanders closely accountable for 
the safety of every soldier within his or her command.
                  anthrax vaccine immunization program
    Question. DOD considers the biological agent anthrax to be the 
greatest biological weapon threat to our military force because it is 
highly lethal, easy to produce in large quantities, and remains viable 
over long periods of time. The anthrax vaccination program has been 
curtailed because of limited quantities of FDA approved vaccine.
    If confirmed, will you support and enforce the Anthrax Vaccine 
Immunization Program if DOD reinstates it?
    Answer. Absolutely.
    Question. How do you believe the Army should respond to service 
members who refuse to take the vaccine when ordered to do so?
    Answer. I believe current Army procedures should continue to be 
used to respond to service members who refuse to take the vaccine. 
These procedures emphasize commanders' responsibility to ensure that 
soldiers are continually educated about the intent and rationale behind 
the immunization requirement. That intent is to protect the health and 
overall effectiveness of the command and the individual soldier. If 
confirmed, I will monitor this issue closely.
                           montgomery gi bill
    Question. Almost all new service members enroll in and contribute 
to the Montgomery GI Bill. Only about half use their benefits, and many 
do not use all of their entitlements. Many sailors and marines say they 
would like to stay in the service, but feel they have to leave so that 
they can provide for the education of their spouses and children. Some 
of these service members might stay in the service if they could 
transfer all or a part of their unused entitlement to GI Bill benefits 
to family members in return for a service commitment. Service 
secretaries could use this retention tool selectively, just as they use 
reenlistment bonuses.
    If confirmed, will you give serious consideration to how the Army 
could use the transfer of unused GI Bill benefits to family members as 
a retention tool and provide your thoughts on how we best do this?
    Answer. If confirmed, I will look into this. Cost effective policy 
options that address family issues of central concern to service 
members will be a key to future retention success.
    Question. If confirmed, will you give serious consideration to how 
the Army could use the award of U.S. Savings Bonds as a flexible means 
to enable soldiers to save money for their education and that of their 
dependents?
    Answer. If confirmed, I would support using a Savings Bond 
incentive as I believe that it would favorably impact reenlistment. I 
believe that it would have a more favorable impact if it does not 
negate or reduce any normal bonuses the soldier may be eligible for at 
time of reenlistment. I am also concerned that the legislation be 
inclusive of all soldiers to ensure that none see themselves as 
forgotten by senior Army leadership and Congress.
                       gender integrated training
    Question. Basic training, which may be the single most important 
phase of an individuals' life in the military, is structured and 
defined differently by each service.
    Do you believe the current DOD policy of allowing each of the 
services to establish its own policy for gender integration in basic 
training is effective?
    Answer. Yes. In my mind it makes good sense to have the people most 
familiar with the individual service's culture and training 
requirements make those informed decisions.
    Question. If confirmed, will you propose changes to Army policies? 
If so, what changes will you propose?
    Answer. If confirmed, I have no plans to propose changes at this 
time.
                           concurrent receipt
    Question. Military retirees with disabilities incurred during their 
military service are eligible to receive military retired pay from the 
Department of Defense and veterans' disability compensation from the 
Department of Veteran's Affairs. However, current law requires that 
military retired pay be reduced by the amount of the veteran's 
benefits.
    If confirmed, would you support a change in the law to permit 
disabled military retirees to receive their full retired pay as well as 
their disability compensation?
    Answer. If confirmed, I will devote serious study to this important 
issue. I believe that disabled service members should be treated with 
the utmost care and fairness.
           management of the congressional fellowship program
    Question. For the past several years, the committee has expressed 
concern about the management of legislative fellows by the military 
departments and the Department of Defense.
    If confirmed, will you review the Department's policies pertaining 
to the management of legislative fellows and provide the committee your 
assessment of which management reforms have been implemented and which 
require additional action?
    Answer. Yes.
    Question. What are your personal views on the value and current 
management of the legislative fellowship program within the Army?
    Answer. As I receive briefings on this program I view it as an 
excellent opportunity for outstanding individuals, both military and 
civilian, to learn the workings of the legislative branch of 
Government. Based on briefings I have received, I believe legislative 
fellowships are generally awarded to deserving military and civilian 
personnel with demonstrated potential to benefit from the experience.
    Question. After completing their fellowships, are legislative 
fellows assigned to positions in which the experience and knowledge 
they gained during their fellowship are used effectively?
    Answer. From my briefings, I understand that after completing their 
fellowships, legislative fellows return to assignments within their 
specialties. If confirmed, I will closely monitor this issue to ensure 
they return to legislative positions to complete their utilization 
tours.
    Question. In your opinion, is it appropriate to bring a Reserve 
component member on active duty solely to participate in a legislative 
fellowship program?
    Answer. From my briefings, it is my understanding that both Army 
Reserve and Army National Guard soldiers participate in our program. If 
confirmed, I will continue to support their participation as long as 
their respective agencies have legislative positions for them to fill 
for their utilization tours. I do not support bringing them on active 
duty solely to participate in the program.
                      armed forces retirement home
    Question. The Soldiers' and Airmen's Home in Washington, DC, and 
the Naval Home in Gulfport, MS, provide unique services to eligible 
military retirees but have experienced problems in funding and 
management.
    Do you support an increase in the amount of money automatically 
deducted from the pay of active duty enlisted personnel as a means of 
better funding the retirement homes?
    Answer. If confirmed, I will study this issue in-depth and work 
toward a long-term and comprehensive solution that will ensure the 
solvency of the Armed Forces Retirement Home Trust Fund.
    Question. If confirmed, what actions would you take to ensure the 
successful operation of the retirement homes?
    Answer. If confirmed, I would support any and all efforts that 
would ensure that both facilities are operated in an efficient manner 
and that they provide excellent quality of life for our military 
retirees.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. With the support of Congress, the Department 
of Defense has made great strides toward improving the quality of life 
for our military personnel. Among the most significant improvements has 
been the increase in compensation. However, despite significant pay 
increases over the past years, there is a continuing crescendo for 
additional pay raises. What are your views regarding the adequacy of 
the military personnel compensation program over the span of a military 
career?
    Mr. Brown. I want to take this opportunity to thank the members for 
their attention on this important issue and I thank you for your 
support. Compensation is of great concern to the Army and will remain 
so. It is important that we continue to monitor military pay to ensure 
that it is both adequate for the needs of individual soldiers and the 
needs of the Army as a whole.
    I will continue to review all related recommendations in the future 
to ensure we stick to our basic needs: maintain competitiveness with 
the civilian sector, and continue to offer programs and incentives 
which will allow us to attract and retain qualified soldiers.


    2. Senator Thurmond. Due to the increase in the OPTEMPO of the 
Active Forces, they have called on our Reserve components for support 
on a more frequent basis. Although the Reserve community has willingly 
taken on this challenge, a consequence of the increased Reserve OPTEMPO 
is that the number of active duty soldiers completing their tour of 
duty who join the Reserves is declining. As a result, the Reserves have 
a recruiting challenge and incur higher training costs to maintain 
their readiness challenge.
    In your view, how important is the infusion of former active 
component personnel into the Reserve units?
    Mr. Brown. It is very important. Prior service accessions possess 
high levels of skills and talents in their military occupational 
specialties and contribute significantly to the overall quality and 
readiness of the Army's Reserve components. These soldiers, whether 
transitioning from active duty directly into drilling reserve units 
through the in-service recruiter, or as Individual Ready Reservists 
transitioning from the Individual Ready Reserve into drilling units, 
have traditionally made up the majority of the Army's Reserve component 
enlisted accessions each year. Conversely, non-prior service recruits, 
while introducing youth and vigor to the force, need costly and time 
consuming training. Unfortunately, as the Individual Ready Reserve pool 
shrinks with the downsizing of the regular Army, we have been forced to 
recruit a greater percentage of non-prior service soldiers.
    The rate of prior service accessions has been falling for a number 
of years. In fiscal year 1996, the Army's Reserve components received 
15,112 soldiers directly off of active duty. In contrast, by fiscal 
year 2000, there were only 11,663 accessions of prior service 
personnel. Also, the active component is experiencing a significant 
increase in retention, that further decreases the population available 
for prior service accessions.


    3. Senator Thurmond. A change recommended by the defense strategic 
review is to eliminate the ``up or out policy'' that has been the 
backbone of the military personnel management for the past 50 years. 
What are your views on this proposal? How do you maintain the young and 
vigorous fighting force by retaining those who cannot qualify for 
promotion?
    Mr. Brown. I believe the strategic review is on track in that it 
does not make sense to automatically eliminate experienced, trained 
soldiers with 10 to 15 years on the job because they were not 
competitive for further promotion; however it is important that we 
maintain a vigorous, young fighting force and this must remain first in 
our thoughts if there is to be any change in the current long standing 
policy.
    Before any changes are made it would be my intent to ensure that we 
are able to maintain the highest experience level possible without 
degrading the capabilities of our fighting force.
                                 ______
                                 
    [The nomination reference of Reginald J. Brown follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     June 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Reginald Jude Brown of Virginia, to be Assistant Secretary of the 
Army, vice Patrick T. Henry, resigned.
                                 ______
                                 
    [The biographical sketch of Reginald J. Brown, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Reginald J. Brown

    Reginald J. Brown currently is consulting with two 
companies; Meridian International and Brown & Lowe 
International. He was Executive Director and Member of the 
Board at Alliance for Medical Care from 1996 to 1997. Prior to 
that he was an independent consultant with Science Applications 
International Corp (SAIC) from 1996 to 1997, Capital Systems 
Group, Inc., Executive Vice President and National Policy 
Forum, Policy Council member from 1995 to 1996.
    From 1989 to 1993 he was an Assistant Administrator at the 
U.S. Agency for International Development, a Senior Fellow at 
the Center for Strategic and International Studies from 1982 to 
1989, and an Executive Vice President at DECA Group, Inc. from 
1979 to 1982. From 1974 to 1979 he served in various government 
positions including: Director, in the Office of Price 
Monitoring at the Council of Wage and Price Stability, 
President's Commission on Military Compensation, Congressional 
Budget Office, Principal Analyst, Defense Manpower Commission. 
Prior to that he was the Deputy Administrator at the Office of 
Food, Cost of Living Council from 1973 to 1974.
    He was a Special Assistant for Energy and Natural Resources 
at the MITRE Corporation and an Assistant Vice President at the 
Urban Institute from 1971 to 1974. He served in various 
positions with the U.S. Army Infantry from 1961 to 1971.
    Mr. Brown graduated with a B.S. from U.S. Military Academy 
in 1961. The John F. Kennedy School of Government at Harvard 
University, M.P.A. in 1965. He was a PhD. Candidate in 
Economics at Harvard University, completing his course work 
from 1965 to 1966.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Reginald J. 
Brown in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Reginald J. Brown.

    2. Position to which nominated:
    Assistant Secretary of Army, Manpower and Reserve Affairs.

    3. Date of nomination:
    June 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 13, 1940; New Orleans, LA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Emilia Lowe Chong.

    7. Names and ages of children:
    Eric F. Brown, 36.
    Denise A. Lawson, 34.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard University, 7/64 to 6/66 MPA 65.
    USMA, West Point, 7/57 to 6/61, BS 61.
    El Cerrito High School, 9/54 to 6/57.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President, Meridian International, Inc., Alexandria, VA, 5/99 to 
Present.
    Consultant, Elan Vital, Inc., Alexandria, VA, 3/98 to 5/99.
    Executive Director, Alliance for Medical Care, Alexandria, VA, 3/96 
to 10/97.
    Executive Vice President, Capital Systems Group, Rockville, MD, 2/
95 to 2/96.
    Consultant, SAIC, worked at Fed. Energy Tech. Ctr., Pittsburgh, PA, 
10/96 to 6/97.
    President, Brown Lowe Intl, Consulting in Alexandria, VA, 3/93 to 
Present.
    Assistant Administrator, USAID, Washington, DC, 8/89 to 1/93.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1/79 to 7/79, Director, Energy Div., Office of Price Monitoring, 
Wage and Price Stab.
    5/78 to 12/78, Consultant to Congressional Budget Office and to 
Off. of Tech. Assessment.
    10/77 to 4/78, Exec. Director, President's Commission on Military 
Compensation.
    12/75 to 9/77, Principal Analyst, Congressional Budget Office.
    12/74 to 11/75, Associate Director, Defense Manpower Commission.
    8/73 to 12/74, Dep. Administrator, Office of Food, Cost of Living 
Council.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Meridian International, Inc., President & CEO.
    Meridian Protection Services of CA, Inc., Director.
    Brown & Lowe International, Inc., President.
    Capital Systems Group, Inc., Exec. Vice President.
    Alliance for Medical Care, Inc., Exec. Director.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Legions: 1993 to Present. 
    National Rifle Association: 1989 to Present.
    Naval Institute: 2000 to Present.
    Elan Vital Inc., Educational and Religious Organization: More than 
10 years to Present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Republican National Committee.
    Republican Party of Virginia.
    RNC, National Policy Forum, 1995-1996.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
Republican National Committee:

    05/20/97--$25
    08/05/97--25
    01/23/98--50
    01/11/99--50
    06/25/99--100
    01/25/00--50

Republican Party of Virginia:

    $35 to $50 each year.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Meritorious Service Medal.
    Bronze Star Medal.
    Army Commendation Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Countermobility in Modern Warfare: Opportunities and 
Limitations,'' Defense Science, March, 1989 (With LTG Ernest Graves).
    ``Passive ECM: Merchant Ships' Answer to Self Defense,'' Defense 
Science 2003, February, 1985 (With Vice Admiral Frederick Turner).
    ``Natural Gas Vehicles: A National Security Perspective,'' CSIS 
Significant Issue Series Vol. VI, No. 16 (with Charles Ebinger, et 
al.).
    ``The Persian Gulf: Upheavals, Instability, and a Preventive 
Presence,'' ``The Almanac of Sea power, 1984 (with Admiral Thomas H. 
Moorer).
    ``Electronic Warfare in the 21st Century: Implications for Low 
Intensity Conflict,'' Defense Science and Electronics, July 1984.
    ``The Case for an ANZUS Carrier,'' ``Defense & Foreign Affairs, May 
1983 (with Alvin Cottrell).
    ``U.S. Naval Strategy for the Twenty-First Century,'' Defense 
Science 2001+, April 1983 (with Alvin J. Cottrell).
    The Lessons of Wage and Price Controls, The Food Sector. Harvard 
University Press, Cambridge, Massachusetts, 1977 (with John Dunlop et. 
al.).
    ``Petroleum Storage: Alternative Programs and Their Implications 
for the Federal Budget,'' Congressional Budget Office, October 1976.
    ``Overseas Rotation and Tour Lengths,'' Defense Manpower 
Commission, Staff Studies, Volume IV, May 1976.
    ``The Meaning of Professionalism: Purposes and Expectations in a 
Democratic Society,'' American Behavioral Scientist, May-June 1976.
    ``Regulating Food Prices, Limitations and Possibilities,'' MITRE 
Technical Report, 1976.
    ``Investment Cost Comparisons for Capacity Additions for Selected 
Fuels,'' MITRE Technical Report, MTR-6769, January 1975.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Reginald J. Brown.
    This 19th day of May, 2001.

    [The nomination of Reginald J. Brown was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                              ----------                              

    [Prepared questions submitted to Dr. Stephen A. Cambone by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   June 22, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Yours Truly,
                                   Stephen A. Cambone.
cc: Senator John W. Warner,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. The 
focus on ``jointness'' outlined in the Defense Reorganization Act of 
1986 has significantly enhanced the readiness and warfighting 
capabilities of the U.S. armed forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening civilian control of DOD, 
improving military advice given to the President and Secretary of 
Defense, and advancing the ability of the Department to carry out its 
fundamental mission--protecting America's security and furthering its 
vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects are the 
clear responsibility and authority given the CINCs for mission 
accomplishment, and the increased attention to formulation of strategy 
and contingency planning.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I have not identified any major changes that are needed to 
Goldwater-Nichols. As you well know, the Secretary has studies underway 
regarding the organization of the Department. If any changes are 
identified as a result of these studies, the Department would consult 
closely with Congress, especially this committee.
                                 duties
    Question. Section 134a of Title 10, United States Code, provides 
that the Deputy Under Secretary of Defense for Policy shall assist the 
Under Secretary of Defense for Policy in the performance of his duties. 
Department of Defense Directive 5111.3 emphasizes that the Deputy Under 
Secretary of Defense for Policy advises and assists the Under Secretary 
of Defense for Policy, particularly on strategy formulation, 
contingency planning, and the integration of Department of Defense 
plans and policy with overall national security objectives.
    What is your understanding of the duties and functions of the 
Deputy Under Secretary of Defense for Policy?
    Answer. If confirmed, I will perform the duties provided by statute 
and regulation. The Deputy Under Secretary of Defense for Policy, as 
the primary assistant of the Under Secretary of Defense for Policy 
(USD(P)), advises and assists the USD(P) for all responsibilities in 
providing staff advice and assistance to the Secretary of Defense and 
the Deputy Secretary of Defense, particularly on strategy formulation, 
contingency planning, and the integration of DOD plans and policy with 
overall national security objectives, and by law is empowered to act in 
his or her stead.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am fortunate to have served in a number of positions that 
provide useful experience to perform the duties of the Deputy Under 
Secretary of Defense for Policy.
    From 1990-1993, I served in the Department of Defense as Director 
of Strategic Policy in the Office of the Undersecretary of Defense for 
Policy. My responsibilities included participation in the Ross-Mamedov 
talks on cooperative missile defense activities and oversight of U.S. 
missile defense programs. After I left DOD, I was a Senior Fellow at 
the Center for Strategic and International Studies until 1998. My work 
there focused on the new security challenges confronting the U.S. and 
its allies after the end of the Cold War.
    In 1998, I was the staff director of the Commission to Assess the 
Ballistic Missile Threat to the United States. I led a staff that 
conducted extensive investigation into the threats posed by the 
proliferation of missiles and weapons of mass destruction. During this 
period, I worked with prominent defense policy experts, the 
intelligence community, and DOD. From 1998-2000, I served as Research 
Director at the Institute for National Strategic Studies (INSS) at the 
National Defense University. I oversaw research on key issues of 
strategy and policy to support senior decision-makers in OSD, the Joint 
Staff, and the CINCs. Specifically, I focused on the changing nature of 
deterrence and the trends in key transatlantic security issues. In 
2000, I was detailed from INSS to direct the staff of the Commission to 
Assess United States National Security Space Management and 
Organization.
    Since January of this year, I have been serving as the Special 
Assistant to the Secretary of Defense and the Deputy Secretary of 
Defense. In this capacity, I coordinated the series of reviews directed 
by Secretary Rumsfeld to identify critical issues related to defense 
strategy for consideration and integration in the Quadrennial Defense 
Review (QDR).
    These experiences, I believe, provide a solid base of experience to 
perform the duties of the Deputy Under Secretary of Defense for Policy.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Under 
Secretary of Defense?
    Answer. Please see my previous answer.
    Question. Assuming you are confirmed, are there any other duties 
and functions that you expect that Secretary Rumsfeld would prescribe 
for you?
    Answer. I would expect Secretary Rumsfeld to look to the Deputy 
Under Secretary of Defense for Policy to fulfill all the duties 
assigned to that office by statute and regulation--in particular, 
assistance and advice on the formulation of national security and 
defense policy. This would likely include strategy formulation, 
contingency planning, crisis management and the integration of DOD 
plans and policy with overall national security objectives. In 
addition, I would expect the Secretary would, from time to time, ask me 
to undertake various other special projects.
    Question. If confirmed, what would your responsibilities be with 
respect to strategic and nuclear weapons policy for the Department of 
Defense?
    Answer. Under the anticipated reorganization of OSD Policy, the 
Assistant Secretary of Defense for International Security Policy would, 
among other things, be charged with the development, coordination, and 
oversight of all policy issues related to nuclear weapons and forces. 
The Assistant Secretary would report through the Deputy Under Secretary 
of Defense to the Under Secretary for Policy. My responsibilities would 
thus be quite broad, including representing the Under Secretary and the 
Secretary of Defense in interagency deliberations and international 
negotiations in this area.
                             relationships
    Question. If confirmed, what will be your relationship with: the 
Secretary of Defense; the Deputy Secretary of Defense; the Under 
Secretary of Defense for Policy; the other Under Secretaries of 
Defense; the Assistant Secretaries of Defense in the Policy 
Directorate; the other Assistant Secretaries of Defense; the General 
Counsel of the Department of Defense; the Service Secretaries; the 
Chairman of the Joint Chiefs of Staff; the Vice Chairman of the Joint 
Chiefs of Staff; the Director of the Joint Staff; and the National 
Security Council.
    Answer. If confirmed, I will report to the Secretary and Deputy 
Secretary of Defense through the Under Secretary of Defense for Policy. 
I will work closely with and help to coordinate the work of the 
Assistant Secretaries in the Office of the Under Secretary for Policy. 
I expect to maintain a close and cooperative working relationship with 
the other Under Secretaries and Assistant Secretaries of Defense and 
the General Counsel of the Department. If I am confirmed in this 
position, it will be a high priority for me to develop a close working 
relationship with the Service Secretaries, the Chairman, Vice Chairman 
and Director of the Joint Chiefs of Staff, and with the Joint Staff in 
general. I also will, if confirmed, continue to work closely with the 
staff of the National Security Council to coordinate the 
administration's international security and defense policy with 
Congress.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Under Secretary of Defense for Policy?
    Answer. The major challenges that will confront the Deputy Under 
Secretary of Defense for Policy will be in the areas relating to 
reaching the goal of the President and Secretary of Defense to 
transform U.S. military capabilities, operational concepts and 
organizations to meet the security challenges of the 21st century.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The Quadrennial Defense Review process will provide a basis 
for addressing these challenges. If confirmed, I look forward to 
working with senior DOD civilian and military officials and with this 
committee in using the results of the QDR process as a guide.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Under Secretary of 
Defense for Policy?
    Answer. I am not in a position to assess problems in the 
performance of the functions of the Deputy Under Secretary of Defense 
for Policy.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed, I plan to make an early assessment of the 
functions and resources of the Deputy Under Secretary of Defense for 
Policy and work with the Under Secretary and this committee to take the 
necessary actions to address shortfalls, if there are any.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Deputy Under Secretary 
of Defense for Policy?
    Answer. The U.S. faces a rare opportunity to transform its defense 
posture to meet emerging threats, maintain stability in critical 
regions, and preserve our leadership and freedom of action for the 
future. Taking those actions necessary to implement the transformation, 
decided by the senior civilian and military leadership, will be my 
highest priority.
    In addition to implementing and resourcing the Department's 
transformation efforts, my principal priorities, if confirmed, will 
also include strategy formulation and implementation, contingency 
planning, and crisis management.
             strategy formulation and contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
attention on the formulation of strategy and contingency planning. 
Department of Directive 5111.3 specifically assigns a major role to the 
Deputy Under Secretary of Defense for Policy for those important 
matters.
    How do you see the civilian role, as compared to the military role 
in the formulation of strategy and contingency planning?
    Answer. Civilian control is essential, and starts with the 
President, the Commander in Chief. His senior civilian subordinates--
including the Secretary of Defense, the Under Secretary for Policy, and 
the Principal Deputy Under Secretary of Defense--have a major role in 
formulation of strategy and contingency planning. The senior civilian 
leadership plays a vigorous role in ensuring the development and 
implementation of planning in the Department.
    Civilian oversight of the contingency planning process is at its 
most mature state since enactment of the Goldwater-Nichols Act. The 
Office of the Under Secretary of Defense for Policy maintains very 
close working relations with the Joint Staff and CINCs' planning staffs 
to ensure proper oversight.
    Question. Secretary Rumsfeld has given the highest priority to 
accomplishing a defense strategy review.
    Has this review process produced the foundation of a defense 
strategy that will guide the Quadrennial Defense Review (QDR) process?
    Answer. The Secretary initiated a number of studies to identify 
critical issues related to defense strategy. The results are now being 
integrated into the QDR process. Among the studies undertaken are 
Acquisition Reform, Financial Management, Conventional Forces, Missile 
Defense, Morale/Quality of Life, Space, Transformation, Crisis 
Management, Nuclear Forces, and Strategy. As the Secretary has 
testified, he has been closely involved with the senior military 
leadership in developing an alternative approach that could be tested 
in the QDR process.
    Question. Will the QDR further review and refine the Secretary's 
defense strategy?
    Answer. In accordance with the National Defense Authorization Act 
for Fiscal Year 2000, the QDR will be a comprehensive examination of 
the national defense strategy, force structure, force modernization 
plans, infrastructure, budget plan, and other elements of the defense 
program with a view toward determining and expressing the defense 
strategy of the United States. As Secretary Rumsfeld has testified, the 
QDR process will integrate the results of a variety of studies and the 
views of the senior military leadership in the QDR process. From this 
process, the Department will develop a national defense strategy.
    Question. What role did you play in the Secretary's defense 
strategy review?
    Answer. Acting in my appointed role as the Special Assistant to the 
Secretary and the Deputy Secretary of Defense, I have worked closely 
with the Secretary and his staff in support of the overall review 
process.
    Question. If confirmed, what role would you expect to play in the 
QDR?
    Answer. If confirmed, I would expect to provide substantial support 
to the Secretary and the Deputy Secretary in their direction of the 
QDR. Specifically, I would play a major day-to-day role working closely 
with senior civilian and military leadership, directing and reviewing 
staff studies and QDR analyses, and developing decision options and 
alternatives for the Secretary.
    Question. Department of Defense Directive 5111.3 also assigns a 
major role to the Deputy Under Secretary of Defense for Policy for the 
integration of DOD plans and policy with overall national security 
objectives.
    If confirmed, how will you know what those overall national 
security objectives are in the absence of the issuance of a National 
Security Strategy by President Bush?
    Answer. A new National Security Strategy for the Bush 
administration is now under development. In addition, there is frequent 
and ongoing interaction among the senior leadership--including the 
President, the Vice President, the National Security Advisor, the 
Secretary of State, and the Secretary of Defense, and likewise among my 
interagency counterparts and myself. The Department will remain fully 
cognizant of the administration's national security priorities and 
objectives, and will integrate these into the national defense 
strategy.
                              the balkans
    Question. It appears that NATO may be called upon to play a role 
inside Macedonia, which could involve the use of NATO troops on the 
ground, perhaps overseeing the voluntary disarmament of ethnic Albanian 
insurgents.
    If NATO should agree to play such a role, what are the criteria you 
would recommend be used in deciding whether U.S. forces should 
participate with the forces of our allies on such a mission?
    Answer. The situation in Macedonia is very fluid and sensitive. The 
U.S. already has a significant presence in Macedonia, in order to 
support KFOR logistical operations. Specifically, over 500 U.S. 
personnel are stationed with KFOR Rear at Camp Able Sentry in Skopje.
    As Secretary of State Powell stated on June 20 before the Senate 
Foreign Relations Committee, we have not made any commitments of troops 
for the purpose of a potential NATO mission to assist in disarmament in 
Macedonia, because we really do not see a need for such a contribution 
under current circumstances. I agree with that statement.
    Question. Last December marked the 5-year anniversary of the NATO-
led military presence in Bosnia. Despite over 5 years of an 
international military presence in Bosnia, we are far from achieving 
the goal of a unified, multi-ethnic nation, as envisioned in the Dayton 
Accords.
    In your opinion, what should the United States do to break the 
stalemate in Bosnia and help create the conditions for the withdrawal 
of U.S. troops?
    Answer. NATO and associated military forces are being used to 
secure the environment in which civil implementation of the Dayton 
Accords can take place. Decisions on the circumstances and timing of 
continued military presence in Bosnia are linked to an alliance process 
of periodic assessments. Overall force levels are reviewed every 6 
months. We are committed to act as a member of the alliance in defining 
any reductions. Force levels must be de-linked from civil 
implementation requirements.
    At their most recent meeting in June, NATO defense ministers agreed 
on the need to accelerate the development of civil institutions and 
local police so they may be able to take more responsibility for local 
security and the maintenance of law and order.
                              nato issues
    Question. According to NATO Secretary General Lord Robertson, Heads 
of State and Government decided at their special meeting on June 13, 
2001 that NATO ``hopes and expects, based on current and anticipated 
progress by aspiring members, to launch the next round of enlargement 
at the Prague Summit in 2002.''
    What criteria do you believe should be applied to decide which 
aspiring members, if any, should be invited to join NATO at that time?
    Answer. As President Bush stated in Warsaw, NATO membership should 
be possible ``for all of Europe's democracies that seek it and are 
ready to share the responsibilities that NATO brings.'' The key factor 
in considering which aspirants should be invited to join the Alliance 
is whether their membership will contribute to the Alliance's capacity 
for collective defense and other agreed missions to build security and 
stability in Europe.
    I believe there should not be a ``checklist'' of criteria required 
for NATO membership; however, new members must be prepared to commit 
themselves to:

        <bullet> Accept the responsibilities that come with NATO, 
        including possible participation in an Article 5 defense of 
        another ally.
        <bullet> Contribute their fair share in terms of added military 
        value to the Alliance.
        <bullet> Make the necessary investments in the creation and 
        maintenance of effective military forces that are interoperable 
        with other NATO allies.

    Question. The gap in capabilities between the United States and 
potential allies and coalition partners is wide, and may grow larger as 
we transform our defense capabilities. What roles should we expect 
allies and coalition partners to play across the spectrum of military 
operations? A number of our European NATO allies have assured us that 
the European Union's (EU) European Security and Defense Policy (ESDP) 
would result in greater popular support for defense spending. They also 
have told us that many of the improvements that would have to be made 
to implement the ESDP are the same improvements that are called for by 
NATO's Defense Capabilities Initiative (DCI) and that the increased 
defense spending would enable their military forces to be more capable 
NATO partners. However, we now know that European defense spending has 
been decreasing at a rate of 5 percent per year. Are you concerned 
about the decrease in European defense spending and do you have any 
suggestions for how the United States can get our European allies to 
reverse this trend? What are your thoughts about the ESDP?
    Answer. There are worrisome imbalances and shortfalls in Alliance 
capabilities--for example, in the areas of precision strike, mobility, 
command, control, and communications, and strategic airlift. Several of 
these were highlighted in Operation Allied Force in 1999. The Alliance 
is aware of these imbalances and shortfalls, and the allies must 
continue to work to improve their national and Alliance capabilities, 
including through NATO's Defense Capabilities Initiative (DCI). Not 
every NATO ally needs or can afford the newest or best fighter 
aircraft, long-range tanker aircraft, or surveillance systems, but I 
believe our goal should be to provide NATO forces with compatible and 
complementary capabilities that meet our collective requirements.
    European nations must do more to ensure both appropriate priorities 
for defense and adequate spending, and I believe the U.S. should press 
the allies to move forward on their defense restructuring plans and to 
improve spending levels. The Alliance will not remain healthy if the 
allies are unwilling or unable to make investments to field 21st 
century forces that are fully capable of meeting 21st century 
challenges.
    With regard to ESDP, I believe that NATO will continue to be the 
indispensable anchor of American engagement in European security 
matters and the foundation for assuring the collective defense of 
Alliance members. That said, I believe the administrations approach to 
ESDP is correct. NATO and the European Union must work in common 
purpose, and the U.S. should welcome an ESDP that develops EU 
capabilities in a manner that is fully coordinated, compatible, and 
transparent within NATO, provides for the fullest possible 
participation by non-EU European NATO members, embeds defense planning 
within NATO, and applies only where NATO has chosen not to act 
collectively.
                         value of peacekeeping
    Question. A number of recent newspaper articles have reported the 
views of U.S. military personnel participating in peacekeeping missions 
in the Balkans. In a statement reflective of the general view, an Army 
tank company commander is quoted in the New York Times edition of 
January 18, 2001 as saying about his responsibilities as a member of 
the American force in Kosovo that ``In the Army, you spend practically 
all of your time training. Here, we are executing a real-world mission. 
We get to interact with the other NATO militaries. Things are so 
decentralized that I have a lot more autonomy in making decisions. It's 
good experience.''
    Do you believe that peacekeeping missions can make a valuable 
contribution to troop readiness, particularly at the individual and 
small unit level?
    Answer. The participation of United States forces in peace 
operations can strengthen military skills in several areas, such as 
operating in coalition, providing logistics, communications, 
engineering, medical support, small unit leadership, civil affairs, and 
other key areas. Readiness depends in great part on mission-based 
training, which we must balance between preparing for traditional 
military missions and for peacekeeping and other missions. While this 
is an ongoing challenge, I believe we can maintain that balance. If 
confirmed, I will be diligent in the review of U.S. force commitments 
worldwide, including in peace operations.
                          military deployments
    Question. The administration is conducting a comprehensive review 
of all U.S. military deployments abroad. At a September 1999 speech at 
The Citadel announcing his intention to direct such a review, then-
Governor Bush spoke of problems with ``open-ended deployments and 
unclear military missions.''
    What do you believe are the proper criteria to apply when deciding 
whether or not to involve U.S. Armed Forces in military operations 
overseas, including small-scale contingencies and peacekeeping 
activities?
    Answer. The United States should be selective in its international 
military interventions, especially where there is danger of combat. As 
President Bush said at The Citadel on September 23, 1999, ``If America 
is committed everywhere, our commitments are everywhere suspect.''
    At the same time, the United States will not be able to, nor should 
it, remain indifferent to significant humanitarian crises. But in these 
cases, we should seek as a first resort to help develop mechanisms 
whereby other nations can work together and take the leading 
responsibility. The United States may be willing to provide assistance 
but others should take the lead wherever possible.
    If confirmed, I will work with DOD officials, others in the 
administration, and this committee to help ensure that when we deploy 
our Armed Forces, the mission is justified and well-defined and the 
strategy is well-conceived.
                           counter-narcotics
    Question. For more than 10 years the Department of Defense has been 
a key player in the Federal Government's counter-narcotics efforts. The 
Department is designated as the lead agency for detection and 
monitoring, but also makes a significant contribution in other counter-
narcotics missions, such as interdiction and demand reduction. While 
many see this as a law enforcement function, others believe that, given 
the impact of the drug trade on the stability of the Andean Ridge 
countries, it is a national security function.
    In your opinion what is the appropriate role of the Department of 
Defense in U.S. counter-drug efforts?
    Answer. As the President recently said, a successful counter-drug 
effort depends on a thoughtful and integrated approach. The 
Department's counter-drug activities support the wide range of 
programs. At the same time, the Secretary has tasked the Department to 
review its overall mission to include support to other Federal 
Agencies. I am ready, if confirmed, to oversee the support the 
President and the Secretary feel is required to support other agencies 
in their counter-drug efforts.
    Question. Does the Department's counter-drug efforts contribute to 
the defense of our national interests?
    Answer. I believe the Department's counter-drug activities play a 
significant role in contributing to the administration's overall 
National Drug Control Strategy.
    Question. Do you support the DOD's practice of providing 
information to Andean Ridge governments who engage in the shootdown of 
suspected drug trafficking aircraft?
    Answer. At this time, the Department of Defense is participating in 
the ongoing review led by the State Department on USG assistance to 
host nation interdiction programs, including the recent tragic events 
in Peru. If confirmed, I would make certain that, upon completion of 
the review, further information will be made available to Congress.
                            regional issues
    Question. President Bush and his advisors have emphasized the 
increasing significance of Asia for U.S. foreign and defense policy.
    Do you believe that our national interests dictate that we place 
greater emphasis on Asia? If so, how does this affect our interests in 
Europe, Latin America and elsewhere?
    Answer. We have vital interests in several regions. Our national 
interests are not a zero-sum game. As the Secretary stated on June 7, 
``Increased U.S. attention to the security situation, for example in 
the Persian Gulf or Korea, in no way implies any American intention to 
de-emphasize Europe.''
    While the overall security picture in the Asia-Pacific region is 
generally positive, we nonetheless face some of the greatest challenges 
to U.S. defense policy in that region, specifically China, North Korea, 
and instability in key countries such as Indonesia.
    U.S. military presence has long provided a crucial element of 
stability in the Asia-Pacific region, and that will certainly continue 
to be the case. In the context of the Quadrennial Defense Review, we 
will look at the best ways to protect U.S. interests and ensure 
regional stability in the future. We will be examining possible ways of 
restructuring our force posture and capabilities within the region; we 
may have to rearrange our forces and capabilities to face new threats 
that may arise.
    Question. What is your understanding of President Bush's statement 
that the United States would do ``whatever it took'' to defend Taiwan?
    Answer. The President's statement did not signal a change in U.S. 
policy toward Taiwan, or in the U.S. position on ``One China.'' We 
remain committed to help Taiwan defend itself; we have done so since 
1979.
    U.S. policy toward Taiwan is guided by the Taiwan Relations Act 
(TRA) of 1979. The TRA's basic premises are that an adequate defensive 
capability on Taiwan is conducive to the maintenance of peace and 
security in the region, so long as differences remain between the PRC 
and Taiwan, and that the U.S. ``will make available to Taiwan such 
defense articles and defense services in such quantity as may be 
necessary to enable Taiwan to maintain a sufficient self-defense 
capability.''
    If confirmed, I will monitor carefully the situation in the region 
and take very seriously our obligation to assist Taiwan in maintaining 
a self-defense capability. Such assistance includes not only making 
available defense hardware, but also maintaining contacts with the 
Taiwan defense establishment across a broad range of activities.
    Question. How does this statement affect United States-China 
relations?
    Answer. Our unofficial relationship with Taiwan is an issue that is 
frequently raised in discussions between the United States and the 
People's Republic of China, a condition likely to persist so long as 
differences remain between the PRC and Taiwan.
    Question. The administration has initiated a dialogue with North 
Korea on a ``broad agenda,'' which includes implementation of the 
Agreed Framework, ending North Korea's missile production and export 
programs and reducing the conventional threat from North Korea.
    Do you believe the administration should attempt to achieve 
progress on all of these as a package? Will progress on one item be 
linked to progress on another?
    Answer. Pursuing a comprehensive approach with North Korea allows 
us to address the issues of concern to the U.S., and issues of equal 
concern to South Korea and Japan. A comprehensive approach also 
supports South Korea's engagement with the North. The administration is 
realistic that progress with North Korea will be difficult, but that 
should not preclude us from putting a number of important issues on the 
table to expand our opportunities for progress.
    It would be difficult to justify diplomatic progress with the North 
if the DPRK regime fails to address our concerns on missile production 
and export, Agreed Framework implementation, and reduction of the 
conventional force threat.
    I would support an approach that reaches effectively verifiable 
agreements with the North and that encourages progress toward North-
South reconciliation and a constructive relationship with the United 
States.
    Question. The Bush administration has recently engaged India on a 
number of regional and bilateral issues.
    In your opinion, how will continued dialogue with Indian officials 
on such matters be in our national security interests?
    Answer. Dialogue on strategic issues will build U.S.-India 
understanding and could lay the foundation for cooperation in such 
areas as the President's new Strategic Framework, controlling the 
proliferation of weapons of mass destruction, and enhancing stability 
in South Asia.
    Dialogue on counter-terrorism and peacekeeping also address areas 
of mutual security interest. We will continue to benefit from 
cooperation and interaction with India on these and a growing number of 
other issues, particularly as India's growing economic and military 
power make it an increasingly important player in South Asia, the 
Indian Ocean and beyond.
    Question. Do you support similar U.S. engagement with Pakistani 
officials?
    Answer. While we still have many unresolved issues between our 
countries, Pakistan is an important nation in its own right. United 
States policy in South Asia needs to take account of Pakistan, to seek 
to resolve our differences, and to establish a relationship that 
enables us to influence Pakistan's policies and actions.
    Question. The administration is currently conducting a 
comprehensive review of U.S. policy toward Iraq.
    What elements--to include military options--do you believe should 
be part of the administration's policy to ensure Iraqi compliance with 
the obligations Iraq accepted at the end of the Persian Gulf War?
    Answer. Ensuring Iraqi compliance with U.N. Security Council 
resolutions since the Gulf War will, I believe, require a comprehensive 
approach. Strengthening the sanctions regime is one part of such an 
approach. Enforcing the no-fly zones and other aspects of the U.N. 
Security Council resolutions, as coalition forces are now doing, is 
also important, and the United States should, I believe, look for ways 
to accomplish this more effectively. Finally, as expressed on a 
bipartisan basis in the Iraq Liberation Act, regime change should be an 
element of U.S. policy.
    Question. According to a January 31, 2001, presentation before the 
Nixon Center, Ambassador Elizabeth Jones, Special Advisor to the 
President and Secretary of State for Caspian Basin Energy Diplomacy, 
stated ``that the Bush administration has four strategic goals in the 
Caspian region consisting of (1) assuring sovereignty and independence; 
(2) supporting economic interdependence; (3) assuring reliable sources 
of energy; and (4) supporting American companies' investments in the 
region.''
    What is your view of this policy and what strategic role do you 
envision the Department of Defense playing in supporting this policy?
    Answer. The Department supports the administration's strategic 
goals in the Caspian region and has been an active participant in 
developing policy for the region. We recognize that sovereignty and 
independence of these countries is a top priority. The Department's 
support for these emerging democracies will foster peace and stability 
in the region, and therein strengthen U.S. access to strategic natural 
resources and markets.
                             transformation
    Question. What should the objectives of military transformation be, 
and how urgently should they be pursued?
    Answer. In transforming the military we must address an uncertain 
future strategic environment while staying ready to meet our current 
security responsibilities. This is a difficult challenge that will take 
some time to achieve, but two requirements are crystal clear. First, 
our military forces must transform in a manner that outpaces 
competitors by pursuing new technologies, operational concepts, and 
organizational constructs. Second, we must do so in a way that makes 
our most valuable resource--our soldiers, sailors, airmen, and 
marines--as operationally effective as they can be.
    Recent operations and ongoing experimentation strongly indicate 
that we need to transform now. They have shown the need for forces that 
are rapidly deployable over greater distances, ready for quick 
commitment upon entering a theater, and able to decisively affect the 
outcome of any operation to which they are committed. This necessitates 
that our forces have a command and control system that is truly joint, 
integrated and interoperable.
    Question. What is the role of experimentation, including joint 
experimentation, in this transformation process?
    Answer. Experimentation--particularly joint experimentation--
ensures that our transformation efforts are fully integrated from 
inception to implementation. To achieve these objectives, our 
transformation efforts must encompass several tenets:
    1. Our experimentation efforts must focus on how we can best 
introduce new and emerging technologies to our forces in combination 
with maintaining the legacy systems we will be required to retain for 
some time yet.
    2. Experimentation initiatives must be robust in nature, striking 
in design and sufficiently publicized and imposing that they provide a 
deterrent impact of their own, to any potential adversary.
    3. Our efforts must be suitably balanced between near, mid, and 
long range, objectives. While our thinking must clearly be ``out-of-
the-box'', we must not lose sight of the issue of providing enhanced 
capabilities to our forces today.
    4. We must aggressively pursue new concepts of warfare. Network 
centric, reach back connectivity, sensor-to-shooter, and enhanced 
reconnaissance, surveillance, and target acquisition concepts all 
warrant continued exploration.
    5. Our experimentation efforts must focus on providing enhanced, 
full-spectrum, command, control, and communications capabilities to our 
military forces. Shared, distributed, templated, ``systems of 
systems'', providing real-time, relevant information to widely 
dispersed forces, conducting combat/contingency operations is the 
required end state.
                            export controls
    Question. Are you in favor of passing a new Export Administration 
Act to reauthorize the national export control regime for dual-use 
items?
    Answer. Yes, I am. The current bill, S.149, has several provisions 
that will help transition the current system based on Cold War policies 
into a more modern system that focuses on WMD, end-user and end-use 
controls.
    Question. If so, what elements of such a reauthorization are 
essential to protect national security interests?
    Answer. First, we must protect our military personnel and our 
security interests by ensuring that sensitive technologies are not 
exported to potential adversaries or to foreign entities that represent 
a significant diversion risk. Second, we must have sensible and 
effective policies and procedures to ensure appropriate transfers of 
military and commercial systems and technologies that support our 
coalition warfighting objectives are permitted. Finally, we must be 
mindful that the U.S. is not the only country with advanced military 
and commercial technology. If confirmed, I look forward to working with 
this committee on the issue.
    Question. What role should the Department of Defense have in the 
dual use export control process?
    Answer. The Defense Department must have a strong role in the 
export control policy process. Defense has a tremendous amount of 
talent and technical expertise in the export control area and should 
have the ability to apply these assets to the overall export control 
process. If confirmed, I look forward to working with this committee on 
the issue.
                            homeland defense
    Question. How do you think the Department of Defense can best 
contribute to the national effort to combat terrorism within the United 
States?
    Answer. Consistent with law and regulations, the Department of 
Defense continues to support the lead Federal agencies regarding issues 
dealing with combating terrorism. The Department of Justice, through 
the FBI, is the lead Federal Agency for crisis response when dealing 
with incidents involving domestic terrorism. The Department of Defense 
also supports the Federal Emergency Management Agency that is 
designated as the lead Federal Agency in dealing with issues related to 
consequence management.
    I believe that the Department's focus should be to continue to 
provide unique resources and capabilities that may not reside within 
other agencies such as the ability to mass mobilize and provide 
extensive logistical support.
    Question. What do you believe are the appropriate roles and 
missions for the Department in support of homeland defense?
    Answer. Defending the American homeland is not a new role or 
mission for the Department of Defense. The U.S. military has a long and 
proud tradition of protecting and supporting the American homeland and 
its institutions from a wide variety of threats.
    The Department possesses an array of response assets in both the 
active and Reserve components that can be task organized to support 
lead Federal agencies and civil authorities in dealing with man-made 
events and natural disasters. For example, the Department has created 
the Joint Task Force for Civil Support to assist Federal, state, and 
local first responders in mitigating the consequences of weapons of 
mass destruction (WMD) terrorist incidents.
    If confirmed, I will support the efforts of the Office of National 
Preparedness and the Vice President to develop a preparedness strategy 
for Federal, state, and local governments to do the best possible job 
in preparing for and defending against WMD.
                            nuclear weapons
    Question. Do you support repeal of section 1302(b) of the National 
Defense Authorization Act for Fiscal Year 1998?
    Answer. Yes, I support repealing this section of the Authorization 
Act.
    I support the Bush administration's intention to reduce the U.S. 
nuclear arsenal to the lowest level consistent with our national 
security requirements, including our commitments to our allies.
    If confirmed I will work with the committee to review current 
legislation that requires the U.S. to maintain the current levels of 
nuclear forces, and to reach a position that is consistent with the 
results of the strategic review recommendations.
    Question. Do you support prompt retirement of the Peacekeeper ICBM?
    Answer. This is currently being examined. The President has 
indicated that he wants to reduce nuclear forces quickly, and I expect 
a decision on whether to retire the Peacekeeper ICBM to be made this 
summer.
    Question. Do you support unilateral reductions in strategic nuclear 
forces? If so, to what levels?
    Answer. Clearly, unilateral reductions under the proper 
circumstances may be an attractive and appropriate approach to take. 
The Presidential Nuclear Initiatives of 1991 and 1992 resulted in 
significant unilateral reductions to our tactical nuclear forces, and 
termination or curtailment of modernization programs for our strategic 
forces, without requiring years of detailed negotiations in the context 
of the Strategic Arms Reduction Treaties. Until the Nuclear Posture 
Review is complete I cannot say to what level we should reduce our 
forces.
    Question. Would you support reductions below START II force levels? 
If so, to what levels?
    Answer. I support reductions below existing levels, which are a 
vestige of the Cold War. Again, the issue of how far to reduce U.S. 
nuclear forces is being addressed in the Nuclear Posture Review.
    Question. Would such reductions be unilateral, pursuant to treaty, 
or other government-to-government agreement?
    Answer. Reductions could be accomplished in a number of ways, 
including through unilateral initiatives, reciprocal approaches, formal 
arms control agreements, or some combination thereof. The choice among 
these approaches hinges on many military and diplomatic considerations. 
Again, these issues are being addressed in the review of nuclear 
forces.
    Question. Do you support dismantling warheads removed from 
deployment?
    Answer. I believe we need to address the dismantlement of warheads 
removed from deployment on a case-by-case basis.
    Question. In your view what is the appropriate size of the nuclear 
arsenal?
    Answer. I support the Bush administration's intention to reduce the 
U.S. nuclear arsenal to the lowest level consistent with our national 
security requirements, including our commitments to our allies.
    Question. Do you support a hedge strategy and if so for what 
purpose?
    Answer. We cannot reliably predict the future. Unforeseen 
circumstances will arise, despite our best efforts to anticipate them. 
The United States needs to take steps to reduce its nuclear forces, 
while at the same time ensuring that we have the flexibility and 
capacity to deploy an effective deterrent against any potential 
aggressor.
    Question. How do you define ``hair trigger alert'' and what U.S. 
weapons fit the description of being ``on hair trigger alert''?
    Answer. ``Hair trigger alert'' is a term used by many to describe 
any nuclear forces, on alert, that are vulnerable to attack and are not 
supported by a warning system in which the leadership of a country has 
confidence and that would allow a decision-maker sufficient time to 
consider appropriate actions. There are no U.S. nuclear weapons that 
fit that description.
    Question. Would you support prompt de-alerting of any Russian or 
U.S. weapons that are to be retired?
    Answer. This measure is not without precedent. This issue will be 
looked at as a part of the Nuclear Posture Review. Until this review is 
complete and I have understood the military and political implications, 
I cannot have an informed personal view.
    Question. What other weapons, if any, would you recommend de-
alerting?
    Answer. Again, until the Nuclear Posture Review is complete I 
cannot have an informed personal view on this issue. This issue will be 
carefully considered during the Nuclear Posture Review, and if 
confirmed, I would study this issue carefully before making a 
recommendation to the Secretary of Defense.
    Question. Do you support the Department of Energy's Stockpile 
Stewardship Program?
    Answer. Yes, I support the Department of Energy's Stockpile 
Stewardship Program for its contribution to maintaining a credible 
nuclear deterrent. Ensuring the safety, reliability, and effectiveness 
of U.S. nuclear weapons is important to the national security interests 
of the United States.
    Question. It is estimated that a new facility for manufacturing 
plutonium pits will cost approximately a billion dollars.
    Do the Department's nuclear weapons requirements support the need 
to design and construct such a facility?
    Answer. Yes. The United States has not had a capability to 
remanufacture and certify replacement pits since operations ceased at 
the Rocky Flats Plant in 1989. Destructive surveillance testing forces 
the retirement of a number of warheads in the stockpile each year. 
Today, the Department of Energy (DOE) has no way to replace them. 
Current DOE plans reflect a capability to begin production of one type 
of replacement pit by fiscal year 2009, with other types following 
later. I support this effort.
    Question. Does this cost impact your view on whether we should 
proceed with such a facility?
    Answer. No. Nuclear weapon facilities with the necessary safeguards 
and environmental standards are expensive by their very nature. In my 
opinion, the DOE must restore its capability to produce plutonium 
components in order to sustain the safety and reliability of the 
nuclear deterrent.
    Question. What role should strategic nuclear forces continue to 
play in United States policy and strategy in the foreseeable future?
    Answer. I believe that nuclear weapons contribute substantially to 
the ability to deter aggression against the U.S., our forces abroad, 
and our allies and friends. Nuclear weapons must and will remain a 
critical component of our security posture. Nuclear weapons also serve 
as a means of upholding U.S. security commitments to our allies, as a 
disincentive to those who would otherwise contemplate developing or 
acquiring their own weapons, and as a hedge against an uncertain 
future.
    Question. What criteria should the United States use in determining 
an appropriate strategic nuclear force posture for the foreseeable 
future?
    Answer. These criteria will be developed as a part of the 
congressionally-mandated Nuclear Posture Review. It is too early, at 
this point, to discuss details of the review, including what criteria 
will be applied in determining an appropriate strategic nuclear force 
posture for the foreseeable future.
    Question. In your view, what impact would the introduction of 
missile defense have on deterrence, which in the past has been based 
exclusively on offensive nuclear forces?
    Answer. The world has changed. The United States and Russia are no 
longer enemies whose relationship should be based on mutual assured 
destruction, and we now face new threats, which pose new challenges to 
our security. We require missile defenses to make clear that we will 
not be blackmailed from supporting allies and friends by threats of 
ballistic missile attack. Stability and deterrence will be enhanced 
when we can help dissuade potential adversaries from investing in 
ballistic missiles by devaluing their political and military utility, 
and when we can defend allies and friends as well as the U.S. if 
deterrence should fail.
    Question. Do you believe that the introduction of missile defenses 
by the United States could stimulate a nuclear arms race between Russia 
and the United States?
    Answer. No. We intend to deploy limited defenses against handfuls 
of longer-range missiles, not against hundreds of missiles or warheads. 
Those limited defenses will not threaten the Russian strategic 
deterrent, even under significantly reduced levels of forces.
    Question. And/or between China and the United States?
    Answer. No. China's nuclear modernization program predates U.S. 
missile defense efforts. China is likely to continue this modernization 
regardless of what the U.S. does. In my opinion, China does not want to 
create a ``Cold War'' relationship with the U.S. We have made clear 
that our limited missile defense is intended to protect the U.S., our 
allies and our friends only from those who would seek to threaten or 
coerce us.
    Question. Do you believe that other arms races might be stimulated 
by the introduction of missile defenses by the United States?
    Answer. Missile defenses are a response to proliferation, not the 
cause of it. U.S. and allied vulnerability to ballistic missile attack 
serves as a strong incentive to proliferation. Missile defenses will 
help dissuade potential adversaries from investing in ballistic 
missiles by devaluing their political and military utility.
                              arms control
    Question. Do you believe that arms control treaties can be in the 
national interests of the United States?
    Answer. Yes, arms control agreements and actions can be in the 
national interest of the United States.
    Question. If so, under what circumstances?
    Answer. Each proposed treaty or unilateral action needs to be 
evaluated to determine whether it is in the U.S. national interest. 
Relevant considerations regarding treaties include: Is a proposed 
treaty's purpose in our national interest? Will the proposed terms 
accomplish the purpose? Is the proposed treaty verifiable? How likely 
is it that other parties will comply? How effective are efforts likely 
to be to enforce compliance if the treaty is violated? Are there 
collateral benefits of the proposed treaty even if its terms are 
violated by other parties?
    Question. The Department of Defense plays the lead role in 
developing and implementing arms control technology in support of arms 
control agreements.
    What do you believe should be the key capabilities, e.g. 
monitoring, verification, that the Department should pursue and 
develop? What challenges do you believe exist in developing these key 
capabilities?
    Answer. The Department's focus should be on technologies that 
permit DOD and the United States to protect DOD and other national 
security equities while allowing us to collect information regarding 
the treaty-relevant activities of treaty states of concern. I would 
defer to my colleagues in the intelligence community regarding the 
challenges associated with the development of national technical means. 
With regard to on-site and other cooperative capabilities, the key 
challenge is to develop capabilities that: are selective and whose use 
would not lead to the disclosure of sensitive information, that 
minimize the cost to the U.S. of compliance, that enhance safety, that 
reduce the potential intrusiveness of any on-site arms control 
provisions in the U.S., and that can be widely shared with other 
countries without raising the potential risk of disclosure of sensitive 
technologies.
    Question. The Biological Weapons Convention (BWC) prohibits the 
stockpiling of biological materials in quantities that are not 
justifiable for solely peaceful purposes. Currently, the parties to the 
Convention are discussing details of a proposed protocol that consists 
of a legally binding regime for verification that goes beyond 
confidence building measures. Some critics of these discussions believe 
that such verification measures are too difficult to enforce. Others 
believe the proposed protocol does not go far enough.
    What is your view of the Convention and of the desirability of 
greater verification of it? Do you believe it is possible to establish 
and verify measures beyond confidence building?
    Answer. The Biological Weapons Convention establishes a norm 
against the development, production, acquisition and stockpiling of 
biological weapons. However, given the nature of biological weapons and 
biotechnology, the Convention is inherently unverifiable.
                 threat of growing biotech capabilities
    Question. During the next 10 years expected advances in 
biotechnology will lead to greater capability to manipulate biological 
agents. While we are attempting to protect ourselves against known 
biological agents, we may be several steps behind in addressing near-
term threats posed by these near-term advances in biotechnology.
    Do you believe our current policies and programs for biological 
warfare defense are adequate for current threats? If not, what 
additional steps would you recommend?
    Answer. No. Director of Central Intelligence George Tenet has 
acknowledged that there is ``a continued and growing risk of surprise'' 
in the biological warfare (BW) area, especially in light of bio-
technology advances and steps being taken by determined rogue states to 
hide their BW-related activities. DOD therefore must avoid placing too 
much emphasis on ``validated'' threats in its bio-defense preparations, 
because we are unlikely to have knowledge of the range of biological 
agents that have been, or are available for, weaponization. For 
example, we did not know until well after the Persian Gulf conflict 
ended that Iraq had weaponized anthrax for ballistic missile delivery. 
Nor did we understand the scope of the Soviet BW program--which 
included BW agents for inter-continental ballistic missile delivery--
until defectors came to the West in the early 1990s. Capabilities-based 
planning will be needed to mitigate risks from emergent BW threats.
                   cooperative threat reduction (ctr)
    Question. Do you support the Nunn-Lugar Cooperative Threat 
Reduction Programs?
    Answer. Yes. The elimination of former Soviet strategic nuclear 
weapons, other weapons of mass destruction, and their delivery vehicles 
funded by the CTR program has benefited U.S. national security. The 
United States also has an interest in ensuring that Russia eliminates 
its stockpile of chemical munitions and biological agents. At the same 
time we do not want the CTR program to become a means by which Russia 
frees resources to finance its military modernization programs.
    Question. If so, does this support include support for funding for 
the Russian chemical weapons destruction facility at Shchuch'ye?
    Answer. I do not have a personal view on funding for Shchuch'ye. If 
confirmed, I would get briefed on all relevant facts and circumstances 
to allow me to formulate a view.
    Question. Do you believe the CTR programs are making a long-term 
contribution to increasing U.S. security?
    Answer. Yes. Please see first CTR answer above.
    Question. Do you believe the CTR programs are reducing the 
probability of an accidental or unauthorized launch of a Russian 
ballistic missile?
    Answer. The CTR program does not address directly the issue of 
accidental or unauthorized launches. To the extent that the program 
funds the elimination of former Soviet strategic nuclear weapons and 
their delivery vehicles, it can be said to contribute to the reduction 
of that danger.
    Question. Do you support increasing funding for the CTR programs as 
necessary to improve control over all aspects of Russia's nuclear 
arsenal, including dismantlement of nuclear warheads, accounting 
storage and control of weapons-usable plutonium and uranium, and 
shutting down the last three Russian plutonium producing reactors?
    Answer. I support the CTR program. As to the particular elements of 
the program, I would, if confirmed, get briefed on all relevant facts 
and circumstances to allow me to formulate a view on appropriate 
funding levels.
    Question. In your view, do any increases during the past year in 
Russia's gross domestic product, military spending and arms exports, 
affect Russia's ability to assume more of the cost share associated 
with CTR efforts in Russia?
    Answer. Russia should do more to fund the reduction of the weapons 
of mass destruction left by the Former Soviet Union. Part of the 
ongoing administration review of assistance programs to Russia is to 
identify whether Russia is doing as much as it can to fund these 
reductions. The recent upturn in Russia's economic situation and 
increase in military spending should be taken into account.
    Question. In light of Russia's increasing priority on military 
spending, what is your view regarding the fungibility of U.S. funds 
associated with threat reduction assistance?
    Answer. Investment in the CTR program and other U.S. 
nonproliferation programs should not become a means by which Russia 
frees resources to finance its military modernization programs. The 
current review of these programs should look at such questions.
    Question. Would you propose limiting or prohibiting CTR assistance 
to Russia until Russia ceases its proliferation activities with Iran?
    Answer. I have been informed that the administration is currently 
reviewing its options for encouraging Russia to cease its proliferation 
activities with Iran, including possible steps in the event that Russia 
does not cease such cooperation. If confirmed, I would expect to 
participate actively in that review.
                         nuclear test detection
    Question. Do you support continued and full funding for the U.S. 
project in support of the International Monitoring System for nuclear 
testing?
    Answer. The U.S. contribution to the CTBT Organization, which 
includes support for the International Monitoring System is in the 
Department of State's budget. If confirmed, I would support a review of 
all DOD activities associated with the CTBT.
    Question. Do you believe that the United States' existing nuclear 
monitoring capabilities are sufficient to deter and detect any nuclear 
explosions?
    Answer. I understand that the Department deems our existing 
monitoring capabilities sufficient to detect some, but not all, nuclear 
explosions. The risk of detection will not necessarily deter testing. 
Whether a country will be deterred depends on its own calculations of 
whether the benefits of the test exceed possible penalties resulting 
from possible detection.
    Question. Are there steps that should be taken to enhance our 
nuclear monitoring capabilities, including the possibility of bilateral 
or other international monitoring collaboration?
    Answer. An answer to this question would require an examination of 
U.S. nuclear monitoring requirements and the extent to which current 
capabilities can satisfy them. If confirmed, I would review the 
adequacy of our ability to detect foreign nuclear tests and the cost-
effectiveness of potential improvements.
                            nuclear testing
    Question. Do you believe the United States should return to 
underground explosive testing of nuclear weapons? If so, under what 
circumstances would you favor a return to testing and for what purpose 
would you conduct a test or series of tests?
    Answer. I have not been briefed on a DOD requirement for the United 
States to resume nuclear explosive testing at this time. If confirmed, 
I would support a review of how we can assure the reliability, safety, 
and effectiveness of the nuclear weapons in our stockpile.
                  comprehensive test ban treaty (ctbt)
    Question. What do you believe the policy should be within the 
Defense Department regarding DOD programs that support the CTBT?
    Answer. Secretary Rumsfeld has said that he has concerns with CTBT: 
the risks to the reliability and safety of our nuclear weapon stockpile 
and the difficulty of verification. Because the CTBT has not been 
ratified by the United States or entered into force, the United States 
is under no obligation to implement it. If confirmed, I would support a 
review of all planned DOD activities associated with the CTBT, to 
determine whether they are useful on their own merits.
    Question. What programs within the Department, if any, support only 
a CTBT?
    Answer. I do not have such detailed information. If confirmed, I 
expect that I will be briefed on issues related to the CTBT.
                            space commission
    Question. Do you support creation of an Under Secretary of Defense 
for Space, Intelligence, and Information as recommended by the 
Commission to Assess National Security Space Management and 
Organization?
    Answer. I support Secretary Rumsfeld's decision not to request 
legislation to establish an Under Secretary of Defense for Space, 
Intelligence, and Information. As the Secretary's response to Congress 
on the Space Commission's recommendations indicated, he has asked staff 
to review the responsibilities and functions of the Assistant Secretary 
of Defense for Command, Control, Communications, and Intelligence and 
provide him with recommendations to ensure appropriate senior-level 
policy, guidance, oversight, and advocacy for space, intelligence, and 
information activities.
    Question. If confirmed, what would your responsibilities be with 
respect to space policy for the Department of Defense?
    Answer. If confirmed, I would assist the Under Secretary of Defense 
for Policy in carrying out the responsibilities currently prescribed by 
the Secretary of Defense, to ensure that space policy decisions are 
closely integrated with overall national security policy 
considerations, in coordination with the Assistant Secretary of Defense 
for Command, Control, Communications, and Intelligence, and review 
contingency and operations plans to ensure the proposed employment of 
space forces are coordinated and consistent with DOD policy and the 
National Military Strategy. I would also assume any additional 
responsibilities for space policy prescribed by the Secretary of 
Defense, Deputy Secretary of Defense, or Under Secretary of Defense for 
Policy.
    Question. In your view, how important is it for the United States 
to develop a wide range of space control capabilities, including the 
ability to negate hostile satellites?
    Answer. The security and well-being of the United States, our 
allies, and friends depend on our ability to operate in space. Our 
increasing dependence and the vulnerability it creates, however, 
require us to have the means to deter and dissuade threats to our 
national interests in space. In this regard, I support the 1996 
National Space Policy that directs that ``consistent with treaty 
obligations, the United States will develop, operate and maintain space 
control capabilities to ensure freedom of action in space and, if 
directed, deny such freedom of action to adversaries. These 
capabilities may also be enhanced by diplomatic, legal or military 
measures to preclude an adversary's hostile use of space systems and 
services.'' A broad range of military capabilities may be required to 
implement this policy. I understand the administration has included in 
its on-going strategic review the range of capabilities necessary to 
implement this policy, and I support this effort.
                        non-proliferation policy
    Question. The United States faces a number of threats from the 
proliferation of weapons of mass destruction.
    What role do you believe non-proliferation should have in our 
national security policy and what role should the Department of Defense 
play in this effort?
    Answer. Non-proliferation is a component, complementary to other 
elements, of our national security policy. The Department of Defense 
will continue to take part in interagency policy development to ensure 
effective non-proliferation policy.
    Question. In December 2000, Secretary Cohen met with then Russian 
Defense Minister Igor Sergeyev to discuss U.S. concern over Moscow's 
continued arms sales and proliferation activities with Iran. While this 
meeting and subsequent State Department meetings were considered 
positive, the United States did not receive concrete assurances from 
Russia that these proliferation activities would cease. In fact, 
subsequent actions by Russia indicate that Russia intends to continue 
to increase its arms sales and nuclear technology transfers to Iran, 
despite U.S. concerns.
    If confirmed as Deputy Under Secretary of Defense for Policy, what 
policy options would you propose to address any ongoing prohibited or 
non-prohibited proliferation activities of Russia with Iran?
    Answer. If confirmed, I would look at the full range of available 
options. I would underscore for Russian policy makers that this is a 
new administration and that positive, concrete steps on their part to 
address our security and stability concerns in this area can provide a 
basis for a constructive bilateral relationship.
                            missile defense
    Question. If the administration concluded that, for whatever 
reason, deploying a particular missile defense system would actually 
decrease our security, would you recommend deploying that system?
    Answer. No, but at this time I cannot envision a limited system 
that would decrease our security.
    Question. President Bush has called for missile defenses to protect 
ourselves, our allies and friends against the possibility of limited 
ballistic missile attacks.
    Should we proceed with missile defense programs in a manner such 
that our allies, friends and, if possible, Russia and China do not 
perceive our missile defense programs as threatening or destabilizing?
    Answer. In my view, the United States should proceed in this area 
in accordance with its national interests, taking into account the 
views of our allies. I believe, however, that in the area of missile 
defense, the United States and our allies have fundamentally harmonious 
interests. Good alliance relations are an important element of U.S. 
national interests. I think there are reasonable grounds for hoping 
that the United States and our allies will work closely and 
cooperatively in coming years to protect against the threats resulting 
from the proliferation of weapons of mass destruction and missile 
capabilities. The United States has begun a cooperative allied 
consultation process. The desirable and, I believe, likely outcome is 
alliance consensus, which enlightened U.S. leadership has often over 
the years been able to produce.
    We are also discussing such concerns with Russia and China. We are 
talking about defenses to protect against handfuls of missiles and 
warheads, not hundreds. We intend to move forward on defenses against 
ballistic missiles of all ranges--defenses which would protect our 
friends and allies as well as the United States against the new threats 
which we all face. Our proposed system will not threaten the Russian 
strategic nuclear deterrent, even at significantly reduced levels of 
forces.
    Nor is our missile defense system a threat to China. It is intended 
to defend against threats or attacks from states currently attempting 
to acquire longer-range missiles. Since the late 1980s, China has been 
engaged in the modernization of its nuclear forces; this modernization 
is likely to continue regardless of what the U.S. does.
    Question. The Department of Defense designs, develops and acquires 
weapon systems intended to be operationally effective in combat, and 
demonstrated to be capable of meeting their operational requirements. 
To date, our missile defense programs have followed this long-standing 
policy.
    Do you believe that our missile defense systems should continue to 
meet the operational requirement for effectiveness?
    Answer. Yes. The current operational requirement, however, needs to 
be reviewed in the context of the overall missile defense review.
    Question. Would you recommend acquiring or deploying a weapon 
system, including a missile defense system, that is not operationally 
effective?
    Answer. No. Defenses that are substantially less than 100 percent 
effective, however, can be essential to deterring threats and defending 
against attacks. We should not face an all-or-nothing choice in missile 
defense any more than we do regarding other defense programs.
    Question. You have testified that the ground-based national missile 
defense architecture developed under the previous administration is 
inadequate to the Nation's needs.
    In your view, to what extent should the United States utilize this 
ground-based architecture and technology as a starting point for 
implementing the President's missile defense plans?
    Answer. As the President has stated, the U.S. plans to deploy 
missile defenses capable of defending all 50 states, deployed forces, 
and friends and allies. The previous administration's ground-based 
system, which would only provide for the defense of the United States, 
fails to provide for the defense of our friends and allies. Other 
system architectures could be more effective overall and capable of 
defending our friends, allies, and deployed forces. Furthermore, a 
layered system, capable of intercepting ballistic missiles in their 
boost, midcourse, and terminal phases, increases the likelihood of a 
successful intercept.
    I believe the current ground-based system could play an important 
role in the layered defense concept. Its role, however, will depend on 
a number of factors, such as test results and the availability and 
effectiveness of other promising technologies.
    Question. The administration has stopped describing missile defense 
systems as either ``national'' or ``theater.'' What are the advantages 
to eliminating such a distinction?
    Answer. The President has said we will deploy defenses capable of 
defending the U.S., our deployed forces, and our allies and friends. 
Whether a particular system is a ``national'' system or a ``theater'' 
system depends on where you live and how close you are to the threat. 
Some systems--boost-phase system for instance--may be effective against 
short-, medium-, and long-range ballistic missiles, whether they are 
directed at the United States or at allies in the theater. These 
systems should be used where they are effective.
    Question. Ballistic missile defense systems would not be able to 
defend against weapons of mass destruction delivered by non-missile 
systems such as ships or trucks.
    Answer. We are determined to defend against such threats. We 
already have some defenses against terrorist threats, and are working 
to strengthen them. The U.S. spends billions of dollars annually to 
address these types of threats.
    Regardless of other means of striking the U.S., some countries are 
currently putting significant resources into developing or acquiring 
long-range missile capability, probably because we have no defenses 
against long-range ballistic missiles. Continued vulnerability would 
only encourage others to acquire long-range ballistic missiles, to 
blackmail or coerce the U.S.
                  anti-ballistic missile (abm) treaty
    Question. In a speech at The Citadel in September, 1999, then-
Governor Bush said: ``At the earliest possible date, my administration 
will deploy anti-ballistic missile systems, both theater and national, 
to guard against attack and blackmail. To make this possible, we will 
offer Russia the necessary amendments to the Anti-Ballistic Missile 
Treaty. If Russia refuses the changes we propose, we will give prompt 
notice, under the provisions of the treaty, that we can no longer be a 
party to it.''
    If we can reach agreement with Russia on modifying the ABM Treaty 
to permit the deployment of a limited missile defense system to defend 
the Nation against the possibility of a limited attack, do you believe 
it would be in our interest to do so?
    Answer. President Bush has made clear that the ABM Treaty should be 
replaced with a new framework that reflects a break from Cold War 
thinking and facilitates development of a new, cooperative relationship 
between the United States and Russia. The exact nature of the new 
framework and whether it includes agreements, parallel or unilateral 
actions, or a combination thereof, is still something that is being 
developed. The President is looking at a wide range of ideas for the 
framework, and whether amendments will be part of it remains under 
consideration. In any case, it is clearly in our interest to reach 
agreement with Russia, if possible, and President Bush has made it 
clear that he seeks to move beyond Treaty constraints cooperatively 
with the Russians. To that end, the administration is consulting with 
the Russians, with allies, and with Congress on the concept of such a 
framework. This should provide the opportunity for openness, mutual 
confidence, and a real chance for cooperation, including in the area of 
missile defense.
                         threats and responses
    Question. The United States faces many security challenges and 
threats.
    Do you believe it is important to have a balanced response, in 
terms of policy, strategy, and resource allocation, to the full range 
of threats and challenges we face?
    Answer. Yes. Our overall approach to defense must recognize the 
changes in the world, and requires that we balance the risks we face. 
If confirmed, I will work with this committee to ensure sufficient 
resources to deal with these challenges.
    Question. How do you believe that we should assure that we achieve 
such a balance between threats and responses?
    Answer. We must recognize that the world poses a wide and 
unpredictable array of security challenges to which we must be ready to 
respond. These risks include near-term operational challenges as well 
as long-term challenges that require fundamental transformation of our 
military forces and defense processes. Among our top resource 
priorities to address these challenges are effectively managing the 
force and taking care of our people; promoting experimentation with new 
concepts, organizations, and capabilities; pursuing robust research and 
development for the future; and modernizing and focusing our 
infrastructure and logistics.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
    1. Senator Levin. At your nomination hearing, we discussed the 
issue of operational effectiveness of a National Missile Defense 
system, and you mentioned that there were discussions of the idea of 
changing the standard for NMD operational effectiveness. The NMD system 
has an Operational Requirements Document (ORD) as do all major weapon 
systems, that was approved by the Joint Requirements Oversight Council 
(JROC). At an unclassified level, the NMD ORD specifies that the NMD 
system must defeat all warheads from a limited ballistic missile attack 
(no leakers) with a very high degree of confidence.
    Please describe all conversations to which you have been privy this 
year with persons associated with the Defense Department that have 
taken place relative to the standards for operational effectiveness for 
a National Missile Defense program.
    Dr. Cambone. Since January of this year, in my role as the Special 
Assistant to the Secretary and Deputy Secretary of Defense, I have 
worked closely with the Secretary, the Deputy Secretary, and their 
staffs in the coordination of, and in support of, the series of reviews 
directed by Secretary Rumsfeld. Missile defense is a high priority for 
this administration and, naturally, discussion of a missile defense 
program is a topic receiving substantial attention. Consequently, in my 
role as the Special Assistant to the Secretary of Defense and the 
Deputy Secretary of Defense, I have participated in numerous 
conversations with senior civilian and military officials in which 
issues associated with the operational requirements for missile defense 
have arisen. My conversations with DOD officials have included 
discussion of the operational requirements process within DOD and the 
different types of requirements examined by DOD, including both 
threshold and objective requirements.


    2. Senator Levin. Who has taken part in those discussions?
    Dr. Cambone. Please see the answer to Question 1.


    3. Senator Levin. What reasons have been given in favor of wanting 
to change those operational effectiveness standards?
    Dr. Cambone. In my opinion, the current standards for operational 
effectiveness for the National Missile Defense system, as approved in 
the Operational Requirements Document, need to be reviewed. I 
understand generally that the reasons for changing the operational 
effectiveness requirements include: that the existing requirements for 
missile defense are unprecedented for a weapon system; that no system 
can be 100 percent effective in meeting threshold or objective 
requirements; and that missile defense deployment is not an all-or-
nothing proposition and rudimentary systems less than 100 percent 
effective could make substantial contributions to both deterrence and 
defense.
    I understand that the primary argument for not changing the 
operational effectiveness requirement is that an extremely high degree 
of effectiveness should be the goal of any weapon system. This does not 
mean, however, that a system that does not fully meet the objective 
requirement would not be militarily useful. In fact, the operational 
requirements process within DOD recognizes that there will be both 
threshold requirements, which are the minimal requirements a system 
should meet to be deployed, and objective requirements, which represent 
the desired evolutionary capability, both of which can be modified for 
reasons such as excessive cost or military necessity.
    I will carefully consider these matters in advising the 
Department's leadership of my views on this question.


    4. Senator Levin. What reasons have been given against changing the 
operational effectiveness standards?
    Dr. Cambone. Please see the answer to Question 3.


    5. Senator Levin. What are the views of the Joint Chiefs of Staff, 
the Commanders in Chief (CINCs) and the Joint Requirements Oversight 
Council (JROC) on this question of changing the NMD operational 
requirements standard?
    Dr. Cambone. I am not in a position to speak for the Joint Chiefs, 
the CINCs and the JROC on this matter.


    6. Senator Levin. Have the Joint Chiefs, the CINCs or the JROC 
requested that the operational effectiveness of NMD be changed from the 
current ORD standard?
    Dr. Cambone. I understand that U.S. Space Command is now reviewing 
the missile defense operational requirement in light of the missile 
defense review.


    7. Senator Levin. Have they made such requests for any other 
missile defense system, or any other weapon system?
    Dr. Cambone. As I understand the process, formal requests to review 
operational requirements need not be made; in fact, a CINC can initiate 
them. I believe there is recognition of the need to review requirements 
for missile defense programs overall to ensure our ability to defeat 
the full range of ballistic missiles that we and our friends and allies 
and deployed forces face today as well as in the future.


    7a. Senator Levin. If so, for what systems?
    Dr. Cambone. The Airborne Laser is an example of a system for 
which, I understand, there is general recognition of the need to review 
the requirement.


    8. Senator Levin. Have there been any conclusions or 
recommendations from those discussions?
    Dr. Cambone. The discussions are ongoing.


    8a. Senator Levin. If so, what are they?
    Dr. Cambone. See above answer.


    8c. Senator Levin. If not, is there an intention to make 
recommendations or reach a conclusion on this issue in the foreseeable 
future?
    Dr. Cambone. As discussed above, I understand that CINCSPACE is now 
reviewing missile defense operational requirements in light of the 
results of the missile defense review.


    9. Senator Levin. Have there been similar discussions to which you 
have been privy within the Department on changing operational 
requirements standards for other missile defense systems, or for other 
weapon systems?
    Dr. Cambone. I am aware of discussions about the possible need to 
review requirements with respect to all missile defense systems. I 
understand that this is driven by the need to develop the most 
effective overall systems capable of defending our territory, our 
friends, allies and deployed forces. I believe that a layered system, 
capable of intercepting ballistic missiles in their boost, midcourse, 
and terminal phases, increases the likelihood of a successful 
intercept.


    10. Senator Levin. Has the Department recommended, or has the JROC 
approved, any changes to the operational requirements for any weapon 
system since Secretary Rumsfeld assumed office? If so, please describe 
such changes.
    Dr. Cambone. I am not aware of any such changes.


    11. Senator Levin. Will the Department continue the policy of 
having operational requirements for weapon systems, and of having those 
weapon systems demonstrate that they meet the operational requirements 
before they are deployed?
    Dr. Cambone. I understand that the Department will continue the 
practice of having operational requirements and of testing to those 
requirements as required by statute. I would note, however, the 
Department has on occasion deployed a system that was not fully 
compliant with existing ORD requirements, when necessary to meet 
increased threats. A good example of this is the deployment during the 
Gulf War of Joint Surveillance Target Attack Radar System (JSTARS).
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
    12. Senator Thurmond. Although the United States has established 
significant relationships with the countries of South and Central 
America regarding the counter-drug effort, our interaction with these 
countries is insignificant when compared to other nations of the globe.
    Considering the economic, political and migration issues associated 
with Central and South America, what are your views on our current 
military and diplomatic relationships with these regions?
    Dr. Cambone. The United States has important security interests in 
Latin America. The security, prosperity and demographic makeup of the 
U.S. is profoundly influenced by the stability of the region. Latin 
America countries are some of our most important friends and allies and 
largely share a commitment to democracy, human rights and free markets. 
One of our fundamental goals for the region is the promotion of 
regional stability. The principal threats facing this hemisphere are 
transnational ones, including drug and arms trafficking, money 
laundering, illegal immigration, and terrorism. The vast majority of 
countries of the western hemisphere have reaffirmed their commitment to 
combat these challenges together.
    Given the obvious challenges in the Andes and the President's firm 
intention to work more closely with Latin American governments to 
achieve economic and security objectives, the Department of Defense is 
reviewing existing policies and programs and consulting with regional 
defense officials to make DOD's role in that process more effective.


    13. Senator Thurmond. Many former Soviet republics are seeking to 
establish their own identity independent of Russia's central 
government. In your personal view, how should the United States respond 
to these independence movements?
    Dr. Cambone. The basic U.S. security interest for all 12 of the 
independent states of Eurasia that emerged from the former Soviet Union 
is to support their independence, sovereignty and territorial 
integrity. We seek to support the transition of these states to free 
market economic systems and democratized political systems. In security 
terms, the Department of Defense is working to facilitate the reform, 
restructuring and professionalism of the ministries of defense and the 
armed forces of these states in an effort to shed their Soviet military 
heritage. We hope to build the basis for long-term American influence 
in the development of professional militaries and in the security 
decisions that these countries will make for years to come.
                                 ______
                                 
    [The nomination reference of Dr. Stephen A. Cambone 
follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     June 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. Stephen A. Cambone of Virginia, to be Deputy Under Secretary of 
Defense for Policy, vice James M. Bodner, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Stephen A. Cambone, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Dr. Stephen A. Cambone
    Stephen A. Cambone is currently the Special Assistant to the 
Secretary and Deputy Secretary of Defense. Prior to that, he was the 
Staff Director for the Commission to Assess United States National 
Security Space Management and Organization from July 2000 to January 
2001.
    Dr. Cambone was the Director of Research at the Institute for 
National Strategic Studies, National Defense University (INSS/NDU) from 
August 1998 to July 2000. Before that, he was the Staff Director for 
the Commission to Assess the Ballistic Missile Threat to the United 
States from January 1998 to July 1998, a Senior Fellow in Political-
Military Studies at the Center for Strategic and International Studies 
(CSIS) from 1993 to 1998, the Director for Strategic Defense Policy in 
the Office of the Secretary of Defense from 1990 to 1993, the Deputy 
Director, Strategic Analysis, SRS Technologies (Washington Operations) 
from 1986 to 1990, and a Staff Member in the Office of the Director, 
Los Alamos National Laboratory from 1982 to 1986.
    Dr. Cambone graduated from Catholic University in 1973 with a B.A. 
degree in Political Science, from the Claremont Graduate School in 1977 
with an M.A. degree in Political Science, and from the Claremont 
Graduate School in 1982 with a Ph.D. in Political Science. His numerous 
awards include the Secretary of Defense Award for Outstanding Service 
in 1993 and the Employee of the Year Award with SRS Technologies 
(Washington Operations) in 1988.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Stephen A. 
Cambone in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Stephen Anthony Cambone.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense for Policy.

    3. Date of nomination:
    June 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 22, 1952; Bronx, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Margaret Taaffe Cambone.

    7. Names and ages of children:
    Maria Cambone, 11 years.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Our Lady of Lourdes High School, 9/1966-6/1970; H.S. Diploma 6/
1970.
    Catholic University 9/1970-5/1973; B.A., Political Science 5/1973.
    Claremont Graduate School 1974-1977; M.A., Political Science 1977.
    Claremont Graduate School 1977-1981; Ph.D., Political Science 1982.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director, Strategic Defense Policy, Office of the Secretary of 
Defense/ISP, DOD, Room 2D459, Pentagon, Washington, DC 20301; 4/1990-4/
1993.
    Self-employed, Los Alamos Lab/SAIC/National Institute for Public 
Policy, 1809 Barbee Street, McLean, VA 22101; 5/1993-10/1997.
    Senior Fellow, Political-Military Studies, Center for Strategic and 
International Studies, 1800 K Street, NW, Washington, DC 20006; 6/1993-
7/1998.
    Staff Director, IPA, Ballistic Missile Threat Commission, HQ CIA, 
Langley, VA; 11/1997-7/1998.
    Director of Research, Institute for National Strategic Studies, 
National Defense University, Marshall Hall, Fort McNair, Washington, 
DC; 8/1998-11/2000.
    Distinguished Research Professor, Institute for National Strategic 
Studies, National Defense University, Marshall Hall, Fort McNair, 
Washington, DC; 12/2000-Present.
    Staff Director, Commission to Assess United States National 
Security Space Management and Organization (detailed from National 
Defense University), 2100 K Street, NW, Suite 300, Washington, DC; 7/
2000-1/2001.
    Staff Assistant, Presidential Transition Office (detailed from 
National Defense University), 1800 G Street, NW, Washington, DC; 1/13/
2001-1/21/2001.
    Special Assistant to the Secretary of Defense (detailed from 
National Defense University), 1000 Defense Pentagon, Washington, DC; 1/
22/2001-Present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Nominated to serve on the Commission to Assess United States 
National Security, Space Management and Organization.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Guest Scientist, Los Alamos Laboratory. See SF 278.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Detailed to the Bush/Cheney Transition Team from National Defense 
University.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Dole Campaign, 1996, $1,000.
    I may have contributed to other local campaigns:

        Colleen Sheehan, Congress, PA, c. 1996.
        John Eastman, Congress, CA, c. 1998.
        William B. Allen, Senate, CA, c. 1996.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Secretary of Defense Award for Outstanding Service, 1993.
    Employee of the Year, SRS Technologies (Washington Operations), 
1988.
    Ph.D. awarded with High Honors, Claremont Graduate School, 1982.
    Best Master's Degree Thesis, Government Department, Claremont 
Graduate School, 1977.
    Earhart Fellow, 1976-1977.
    Blue Key, Honorary Award, 1973.
    Pi Sigma Alpha, +9, c. 1974-1980.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Threats and Risks Prompting a Commitment to Ballistic Missile 
Defense (BMD),'' National Missile Defence and the Future of Nuclear 
Policy, Occasional Paper, Institute for Security Studies--Western 
European Union, September, 2000, with Ivo Daalder, Stephen J. Hadley 
and Christopher Makins, ``European Views of National Missile Defense,'' 
Policy Paper, The Atlantic Council, September, 2000.
    ``An Inherent Lesson in Arms Control,'' The Washington Quarterly, 
Vol. 23, No. 2 (Spring 2000).
    ``After the Assessment: Responding to the Findings of the Rumsfeld 
Commission.'' Director's Colloquium, Los Alamos National Laboratory, 
February 9, 1999.
    A New Structure for National Security Policy Planning, (Washington, 
DC: CSIS Press), 1998.
    ``Demarcation Issues Between Strategic and Theater Systems: A 
Response [to an Administration View],'' Robert L. Pfalzgraff, Jr., ed., 
Security Strategy and Missile Defense (Cambridge, MA; Institute for 
Foreign Policy Analysis), 1996.
    With Colin Grey, ``The Role of Nuclear Forces in U.S. National 
Security Strategy: Implications of the B-2 Bomber,'' Comparative 
Strategy, Vol. 15, No. 1 (Fall 1996). 
    With Patrick J. Garrity, ``The Future of U.S. Nuclear Policy,'' 
Survival, Vol. 36, No. 4 (Winter 1994-5).
    With Don M. Snider and Daniel Goure, ``Defense in the Late 1990s: 
Avoiding the Trainwreck'' CSIS Report, 1995.
    ``Readiness Standards for the Future,'' prepared for the Institute 
for National Security Studies, National Defense University, Washington, 
DC, 1995.
    ``An Approach to Defense S&T and Providing Technological 
Superiority for U.S. Military Forces,'' CNSS, Los Alamos National 
Laboratory, 1995.
    ``NATO Enlargement: Implications for the Military Dimension of 
Ukraine's Security,'' The Harriman Review, Vol. 10, No. 3, Winter 1997.
    ``Will the Senate Endorse NATO's Enlargement,'' RUSI Journal, Vol, 
142, No. 6, December, 1997.
    ``NATO's New Members: Ready for Accession,'' unsigned Strategic 
Comments for the International Institute for Strategic Studies, Vol. 3, 
No. 10, December, 1997.
    ``European Unified Political-Military Planning and Control: The 
Creation, Organization and Control of a European Force,'' Gert de Nooy, 
ed., The Role of European Ground and Air Forces after the Cold War (The 
Hague: Netherlands Institute of International Relations/Clingendael), 
1997.
    ``NATO Expansion: A Strategic Perspective,'' U.S. Defense 
Intelligence Agency, 1996.
    ``Organizing for Security in Europe: What Missions, What Forces, 
Who Leads, Who Pays?'' Graduate Program in International Studies, 
Working Paper 95.5, Old Dominion University, 1996.
    ``Role of the United States in the Future of Europe,'' Ann-Sofie 
Dahl, ed., Security in Our Time. Four Essays on the Future of Europe, 
(Stockholm, National Defense Research Establishment), 1995.
    Editor, ``NATO's Role in European Stability,'' CSIS Report, 
Washington, DC, 1995.
    ``Time to Define a New U.S.-CIS Relationship,'' Europe Orientale et 
Centrale: Les Options de L'Europe Occidentale (Brussels: Centre 
d'Etudes de Defense, Institut Royal Superieur de Defense), 1995.
    ``The Implications of U.S. Foreign and Defence Policy for the 
Nordic and Baltic Region,'' Arne O. Bruntland, Don M. Snider, eds., 
Nordic Baltic Security: An International Perspective, CSIS Report, 
Washington, DC, 1995.
    ``The United States and Theater Missile Defense in North-east 
Asia,'' Survival, Vol. 39, No. 3, Autumn, 1997.
    ``Weapons Proliferation: Australia, the U.S. and the Strategic 
Equilibrium of the Asia-Pacific'' in Roger Bell, Tim McDonald and Alan 
Tidwell, editors, Negotiating the Pacific Century (Sydney: Allen & 
Unwin), 1996.
    ``The Political Setting,'' Dick A. Leurdijk, ed., A U.N. Rapid 
Deployment Brigade. Strengthening the Capacity for Quick Response (The 
Hague: Netherlands Institute of International Relations/Clingendael), 
1995.
    ``NATO and Peacekeeping: Lessons Learned,'' U.S. Defense 
Intelligence Agency, 1995. ```Principles of Operational Concepts for 
Peacemaking,'' Ernest Gilman, Detlef E. Herold, eds., Peacekeeping 
Challenges to Euro-Atlantic Security (Rome: NATO Defense College), 
1994.
    ``Kodak Moments, Inescapable Momentum and the World Wide Web: Has 
the Infocomm Revolution Transformed Diplomacy?'' Center for Information 
Strategy and Policy, Science Applications International Corporation, 
McLean, VA, 1996.
                               testimony
        <bullet> ``Iran's Ballistic Missile and WMD Programs,'' 
        Testimony before the Subcommittee on International Security, 
        Proliferation and Federal Services, Committee on Government 
        Affairs, United States Senate, 106th Congress, September 21, 
        2000.
        <bullet> ``Elements of a Decision to Deploy National Missile 
        Defense,'' Testimony before the Armed Services Committee, House 
        of Representatives, 106th Congress, June 28, 2000.
        <bullet> ``Elements of a Modern, Non-Proliferation Policy,'' 
        Testimony before the Senate Foreign Relations Committee, March 
        21, 2000.
        <bullet> ``Issues Surrounding the 50th Anniversary Summit of 
        NATO,'' Testimony before the Senate Foreign Relations 
        Committee, Subcommittee on European Affairs, April 21, 1999.
        <bullet> ``Qualifications of Poland, Hungary and the Czech 
        Republic for NATO Membership,'' Testimony prepared for the 
        Senate Committee on Foreign Relations, 105th Congress, October 
        22, 1997.
        <bullet> ``Prepared Statement on the Costs of NATO 
        Enlargement'' Appendix 4, The Debate on NATO Enlargement, 
        Hearings before the Committee on Foreign Relations, United 
        States Senate, 105th Congress, 1st Session, Committee Print S. 
        Hrng. 105-285.
        <bullet> ``The ABM Treaty and Theater Missile Defense,'' 
        Testimony before the Military Research and Development 
        Committee of the Committee on National Security, House of 
        Representatives, 104th Congress, March 21, 1996.
        <bullet> ``Space Programs and Issues,'' Testimony before the 
        Subcommittee on Strategic Forces of the Senate Armed Services 
        Committee, 104th Congress, May 2, 1995.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have not delivered formal speeches. I have, however, participated 
in numerous panel discussions, colloquies, etc. Those presentations 
frequently were developed into articles. Examples include:

        <bullet> ``After the Assessment: Responding to the Findings of 
        the Rumsfeld Commission.'' Director's Colloquium, Los Alamos 
        National Laboratory, February 9, 1999.
        <bullet> ``Demarcation Issues Between Strategic and Theater 
        Systems: A Response [to an Administration View],'' Robert L. 
        Pfalzgraff, Jr., ed., Security Strategy and Missile Defense 
        (Cambridge, MA; Institute for Foreign Policy Analysis), 1996.
        <bullet> ``Organizing for Security in Europe: What Missions, 
        What Forces, Who Leads, Who Pays?'' Graduate Program in 
        International Studies, Working Paper 95.5, Old Dominion 
        University, 1996.
        <bullet> ``Role of the United States in the Future of Europe,'' 
        Ann-Sofie Dahl, ed., Security in Our Time. Four Essays on the 
        Future of Europe, (Stockholm, National Defense Research 
        Establishment), 1995.
        <bullet> ``Time to Define a New U.S.-CIS Relationship,'' Europe 
        Orientale et Centrale: Les Options de L'Europe Occidentale 
        (Brussels: Centre d'Etudes de Defense, Institut Royal Superieur 
        de Defense), 1995.
        <bullet> ``The Political Setting,'' Dick A. Leurdijk, ed., A 
        U.N. Rapid Deployment Brigade. Strengthening the Capacity for 
        Quick Response (The Hague: Netherlands Institute of 
        International Relations/Clingendael), 1995.
        <bullet> ``Principles of Operational Concepts for 
        Peacemaking,'' Ernest Gilman, Detlef E. Herold, eds., 
        Peacekeeping Challenges to Euro-Atlantic Security (Rome: NATO 
        Defense College), 1994.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Dr. Stephen A. Cambone.
    This 18th day of June, 2001.

    [The nomination of Dr. Stephen A. Cambone was reported to 
the Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 19, 2001.]
                              ----------                              

    [Prepared questions submitted to Michael Montelongo by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   June 21, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Michael Montelongo.
cc: Senator John Warner,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    What is your view of the extent to which these defense reforms have 
been implemented?
    What do you consider to be the most important aspects of these 
defense reforms?
    Answer. Yes, I fully support the Goldwater-Nichols Act. It enhanced 
the organization of the Department of Defense, establishes a clearer 
focus on military capabilities and responsibilities and facilitates 
improvement in the advice provided to the Secretary of Defense. Service 
capabilities are more integrated.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing a clear responsibility on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revision to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I'm not aware of specific proposals, but I do not think 
changes are contemplated in financial management. I believe strongly in 
the legislative process. I'm committed to fully supporting all laws as 
enacted.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force (Financial Management & 
Comptroller)?
    Answer. The duties and functions of the Assistant Secretary of the 
Air Force (Financial Management & Comptroller) are stated in Public Law 
100-456, section 8022. As stated, the Assistant Secretary of the Air 
Force for Financial Management shall direct and manage financial 
management activities and operations of the Department of the Air 
Force, including ensuring that financial management systems of the 
Department of the Air Force are compliant. The Assistant Secretary of 
the Air Force for Financial Management shall supervise and direct the 
preparation of budget estimates of the Department of the Air Force and 
otherwise carry out, with respect to the Department of the Air Force, 
the functions specified for the Comptroller of the Department of 
Defense in section 137(c) of Title 10. Other duties include financial 
management systems responsibilities, asset management systems 
responsibilities, 5-year plan strategies, and providing the Secretary 
of the Air Force an annual report each year on the activities of the 
Assistant Secretary during the preceding year to include a description 
and analysis of the status of Department of the Air Force financial 
management.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am quite familiar with the military, having served 20 
years as an Army officer. I have had invaluable opportunities to work 
with Pentagon personnel and many people on the Hill as a Special 
Assistant to the Army Chief of Staff and as a legislative fellow on the 
staff of Senator Kay Bailey Hutchison. My Bachelor of Science degree in 
General Engineering is from West Point and my MBA is from Harvard. The 
quantitative focus in my academic training will be of great use in the 
numerical world of financial management and in working financial 
systems reform.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force (Financial Management & Comptroller)?
    Answer. No. I believe I have the right abilities.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Roche would prescribe for you?
    Answer. As noted above, I'd expect the Secretary would prescribe 
duties and functions commensurate with the duties and functions 
outlined in Public Law 100-456, Section 8022.
    Question. In carrying out your duties, how will you work with: the 
Secretary of the Air Force; the Under Secretary of the Air Force; the 
Under Secretary of Defense (Comptroller); and the Assistant Secretaries 
of the Army and the Navy for Financial Management?
    Answer. As the Secretary of the Air Force shared with this 
committee, if confirmed I'd expect to be a member of the nucleus of the 
Secretary's leadership team. Additionally, if confirmed, I look forward 
to working closely with the Under Secretary of Defense (Comptroller) 
and the Assistant Secretaries of the Army and the Navy for Financial 
Management. I think this administration, beginning with the President, 
has established an environment that encourages this collaboration. 
There are also various forums that have been created within DOD so the 
services can talk to OSD and each other and work issues.
      civilian and military roles in the air force budget process
    Question. What will the division of responsibilities be between the 
Assistant Secretary of the Air Force (Financial Management & 
Comptroller) and the senior military officer responsible for budget 
matters in the Air Force's Financial Management & Comptroller office 
(the Deputy Assistant Secretary for Budget) in making program and 
budget decisions including the preparation of the Air Force Program 
Objective Memorandum, the annual budget submission, and the Future 
Years Defense Program?
    Answer. If confirmed, I will directly supervise the Deputy 
Assistant Secretary (Budget). The Assistant Secretary for Financial 
Management has sole responsibility for all financial management 
functions including the preparation of the budget. Budgets are 
important statements about priorities regarding readiness, investment, 
and other key activities. Therefore, many personnel other than the 
Assistant Secretary for Financial Management play important roles 
during the preparation of the Air Force budget. Additionally, if 
confirmed, I will have formal oversight responsibility for the 
Secretary for the financial aspects of the POM preparation and the Air 
Force portions of the annual President's budget submission, along with 
all the entries in the Future Years Defense Program (FYDP).
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Assistant Secretary of the Air Force (Financial 
Management & Comptroller)?
    Assuming you are confirmed, what plans do you have for addressing 
these challenges?
    What do you consider to be the most serious problems in the 
performance of the functions of the Assistant Secretary of the Air 
Force (Financial Management & Comptroller)?
    What management actions and time lines would you establish to 
address these problems?
    Answer. If confirmed, I believe a key challenge will be to improve 
financial management systems, both budget and finance systems. The 
services need to lay out a roadmap that supports the DOD plan. The DOD 
plan includes reducing the number of finance and accounting systems, 
and then improving the balance.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Assistant Secretary of the Air 
Force (Financial Management & Comptroller)?
    Answer. Consistent with my previous response and if confirmed, the 
broad priorities I would focus on are 1) aggressively pursuing 
improvements in financial management systems and their related critical 
feeder systems to achieve auditable financial statements and compliant 
systems, 2) constructing budgets that meet Air Force priorities and 
fiscal constraints, and 3) executing budgets in a way that address 
rapidly changing environments and military needs.
                    budgeting for flying hour costs
    Question. In recent years both the Air Force and the Navy budgets 
have consistently underestimated the cost of carrying out their planned 
training for aviation units, that is, their flying hours costs. The 
most frequently cited reasons for this are the increasing hourly cost 
to operate older aircraft and a budget process that does not adequately 
project and budget for likely cost increases above the most recent data 
on actual cost incurred.
    What are your views on the reason for the consistent underfunding 
of flying hour costs and the steps that should be taken to correct it?
    Answer. While I'm not familiar with the specific details of flying 
hour costs, if confirmed, I will make this issue a top priority. I 
understand the increased strain that is placed on resources, budget 
planning and budget execution when actual costs significantly differ 
from budgeted costs.
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and initiatives the Department and its components 
are undertaking to correct these deficiencies, financial data continues 
to be unreliable.
    What do you consider to be the top financial management issues to 
be addressed by the Department of the Air Force over the next 5 years?
    If confirmed, how do you plan to provide the needed leadership and 
commitment necessary to ensure results and improve financial management 
in the Air Force?
    If confirmed, what are the most important performance measurements 
you would use to evaluate changes in the Air Force's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and the anticipated results are being achieved?
    Answer. I consider the top financial management issues for the next 
5 years to parallel the priorities I noted previously. If confirmed, 
I'll provide the necessary leadership, strong commitment, and emphasis 
to the priorities outlined by the President, the Secretary of Defense 
and the Secretary of the Air Force. The key driver and critical success 
factor is sustained senior management level attention, and we have it. 
It is my understanding that the Secretary of Defense and the Under 
Secretary of Defense (Comptroller) are very concerned with financial 
management improvement and so is the Secretary of the Air Force.
              compliance with chief financial officers act
    Question. The Chief Financial Officers Act requires the annual 
preparation and audit of financial statements for Federal agencies. 
However, the DOD Inspector General and GAO's financial audit results 
have continually pointed out serious internal control weaknesses 
concerning hundreds of billions of dollars of material and equipment, 
as well as billions of dollars of errors in the Department's financial 
records.
    In your view, is the Air Force capable of meeting the requirements 
imposed by the Chief Financial Officers Act? If not, please describe 
the actions you think are necessary to bring the Air Force into 
compliance and the extent to which such actions are the responsibility 
of the Assistant Secretary of the Air Force (Financial Management & 
Comptroller) or other officials in the Department of the Air Force or 
the Department of Defense.
    Answer. I think the Air Force is capable of meeting the 
requirements imposed by the Chief Financial Officers Act and I'm aware 
that other agencies have made great strides in this area. Since 
complying with the CFO Act is a legislative duty, if confirmed, I will 
make this a high priority item.
            standardization within the department of defense
    Question. Many of the financial management initiatives currently 
underway within the Department of Defense (DOD) are centrally 
controlled by the Office of the Secretary of Defense, and most 
observers believe that financial management and comptroller practices 
should be standardized throughout the Department of Defense to the 
maximum extent possible.
    What role do you feel the military departments should have in the 
decision-making process when DOD-wide financial management decisions 
are made?
    What are your views on standardizing financial management systems 
(including hardware and software) and financial management practices 
across the Department of Defense?
    Are there areas where you believe the Air Force needs to maintain 
unique financial management systems?
    Answer. I believe standardization promotes efficiency and 
jointness. While OSD has key responsibility for DOD-wide financial 
management decisions, the services are important customers, paying a 
large amount of the cost, and must ensure necessary information is 
provided. I'm not currently aware of any areas where the Air Force 
needs to maintain unique financial management systems, but there may be 
areas where practical applications and cost require it. If confirmed, 
financial management systems will be one of my top priorities.
             responsibility for accuracy of financial data
    Question. When the Department of Defense, through the Under 
Secretary of Defense (Comptroller) or the Defense Finance and 
Accounting Service, prepares financial or budget information for 
submission to the Office of Management and Budget or Congress, who will 
be responsible for the accuracy of such information concerning the Air 
Force?
    Who will be responsible for ensuring that the financial management 
and accounting systems of the Department of the Air Force have the 
interfaces and internal controls needed to produce timely and accurate 
financial information?
    Answer. I believe the responsibility must be shared. The Air Force 
is responsible for the accuracy and timeliness of its input information 
and for ensuring its financial regulations are followed. OSD, working 
through the Comptroller, and DFAS are responsible for developing and 
operating the systems and procedures that compile financial management 
information.
                     financial management training
    Question. In response to the Defense Acquisition Workforce 
Improvement Act of 1991, DOD has taken action directed at improving the 
professionalism of its acquisition workforce. This was brought about as 
a result of the need to better ensure that DOD's acquisition workforce 
was well versed in the rapidly changing technical skills needed to keep 
abreast of acquisition trends. A key part of the effort to upgrade the 
professionalism (technical currency) of DOD's acquisition workforce was 
the requirement that each acquisition official receive a minimum of 80 
hours of continuous learning every 2 years. While DOD has stated that 
this should be a goal for financial management personnel, it has not 
made it a requirement because of uncertainties over whether necessary 
funding would be available.
    What are you views on the merits of establishing a requirement that 
all Air Force financial management personnel receive a minimum of 80 
hours of training every 2 years?
    If confirmed, what actions would you take to ensure that the Air 
Force's financial management personnel keep abreast of emerging 
technologies and developments in financial management?
    Answer. I support the requirement that all Air Force financial 
management personnel receive a minimum of 80 hours training every 2 
years. If confirmed, I would ensure the Air Force's financial 
management personnel remain current with emerging technologies and 
developments in financial management by supporting programmed and work-
in-progress initiatives.
                                  ppbs
    Question. Recently, a commission which included a number of former 
Defense officials and former Comptroller General Charles Bowsher 
asserted that the Department's Planning, Programming, and Budgeting 
System (PPBS) is no longer functioning effectively.
    What are your views on the PPBS process? Are there any changes that 
you would recommend?
    Answer. If confirmed, I would welcome the opportunity to review the 
PPBS process. Because there are a number of agencies other than just 
the services that are involved with the process, I think a senior level 
group composed of key players should be formed to study the issue and 
prepare a report that may or may not recommend changes.
             government performance and results act (gpra)
    Question. If confirmed as the Assistant Secretary of the Air Force 
(Financial Management & Comptroller), what would your responsibilities 
be with respect to the requirements of the GPRA to set specific 
performance goals and measure progress toward meeting them?
    What additional steps can the Air Force take to fulfill the goals 
of the GPRA to link budget inputs to measurable performance outputs?
    Answer. Since the GPRA report includes the measurement and 
reporting of resources, the Assistant Secretary of the Air Force 
(Financial Management & Comptroller) has collateral responsibility with 
respect to GPRA publication; and of course, DFO requirements include 
broad performance measures. I believe that steps the Air Force can take 
to fulfill the goals of the GPRA include the judicious selection of 
measurable and meaningful metrics.
                          incremental funding
    Question. In the fiscal year 2000 budget request, the previous 
administration proposed to shift from the traditional full funding of 
military construction projects to an incremental funding approach. This 
proposal was unanimously rejected by the congressional defense 
committees.
    What are your views regarding full-funding versus incremental 
funding of major weapons systems?
    Answer. I completely support the full-funding policy that has 
served the department well for decades. There may, however, be an 
occasional need to waive that policy.
                        savings from competition
    Question. The Air Force and the other military departments have 
substantially increased the number of public-private competitions in 
recent years in order to achieve greater efficiency and effectiveness 
while reducing costs. Studies have shown that the military departments 
save money regardless of which side wins the competition.
    Do you believe that decisions on whether to outsource work 
currently performed by government civilians should be made through 
public-private competition?
    What steps should the Air Force undertake to measure the actual 
savings achieved after such competitions?
    What are your views on the practice of including ``funding wedges'' 
in the budget that anticipate savings from public-private competition 
or other efficiencies prior to those savings actually being achieved?
    Answer. I believe some tasks are so inherently governmental they 
should remain in the public arena. Otherwise, I believe competition 
produces greater benefits for reduced costs and I support competition. 
My view on the practice of ``funding wedges'' before those savings are 
achieved is that it forces an unrealistic amount for planned costs and 
consequently results in variances to budgeted costs.
                         working capital funds
    Question. Are there any changes you would recommend in the policies 
governing working capital funds in the Department of the Air Force?
    Do you believe the scope of activities funded through working 
capital funds should be increased or decreased?
    Answer. I am not currently familiar enough with working capital 
funds to recommend any changes. Based on my experience, I believe the 
scope of working capital funds is adequate. Especially in the areas of 
supply and depot maintenance, the working capital fund concept promotes 
competition and encourages a private sector method of business. This 
gives the customer visibility to costs so informed decisions and trade-
offs can be made.
                  oversight of special access programs
    Question. As the Assistant Secretary of the Air Force (Financial 
Management & Comptroller), will you be responsible for the financial 
management of special access programs in the Air Force?
    Are you satisfied with the oversight standards for the financial 
management of special access programs? Are these standards as stringent 
as those for other programs?
    Does the Office of the Assistant Secretary of the Air Force 
(Financial Management & Comptroller) have sufficient cleared personnel 
and authority to review special access programs?
    Answer. Yes. If confirmed, I will have responsibility for the 
financial management of all special access programs in the Air Force. 
My understanding is that the oversight standards for the financial 
management of special access programs are as stringent as those for 
other programs. The Office of the Assistant Secretary of the Air Force 
(Financial Management & Comptroller) has one office with appropriately 
cleared personnel, dedicated to the financial management of Air Force 
special access programs.
                   legislative liaison responsibility
    Question. Under the current organization of the Air Force, 
legislative liaison function affecting congressional appropriations 
committees are performed by officers under the supervision and control 
of the Air Force Comptroller.
    If confirmed, what would be your relationship with the Chief of 
Legislative Affairs regarding budgetary and appropriations matters?
    What requirements or procedures, if any, would you put into place, 
if confirmed, to ensure that financial information is made available on 
an equal basis to authorization committees?
    Answer. If confirmed, I will be responsible for budget 
appropriations matters while the Chief of Legislative Affairs has 
responsibility for budgetary authorization matters. Our 
responsibilities are spelled out in accordance with Public Law. In the 
past, the two organizations have enjoyed a congenial relationship that 
I would expect will continue.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that the committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities, as the Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communication of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. Based on your private sector and military 
experiences, what is the most immediate change that must be made to 
improve financial management within the Department of Defense?
    Mr. Montelongo. I believe we must give Congress and the American 
people full confidence in the way the department manages and accounts 
for funds--we must ensure the systems and processes are in place to 
achieve this goal. Also, our planning, programming and budgeting 
processes must remain relevant as we face the demands of the new 
century.


    2. Senator Thurmond. As you may be aware, many of our military 
installations are in a poor state of repair due to the under-funding of 
the repair and maintenance accounts. Although the habitual under-
funding of these accounts is a primary cause, diversion of funds to 
other areas is a contributing factor.
    What controls would you initiate to limit the diversion of funds 
from the real property maintenance accounts?
    Mr. Montelongo. Past experience tells me that this diversion is 
probably caused by efforts to meet primary mission requirements within 
a constrained funding level. By ensuring there is enough funding for 
all basic requirements--mission operations, operations support, people 
programs, physical plant, and modernization, we limit this migration of 
funds.


    3. Senator Thurmond. Outsourcing of activities to the private 
sector seems to be the Department's immediate answer for achieving 
savings in the operating budget. In your personal view, how can we 
guarantee that these are long-term savings rather than a buy-in on the 
initial contract?
    Mr. Montelongo. Certainly there is risk in making any long-term 
savings assumptions. However, I understand that the process the 
Department uses to outsource activities allows these decisions to be 
revisited in the future. At that time, if a function is more cost-
effective to be accomplished in-house, it is returned to the 
government.
                                 ______
                                 
    [The nomination reference of Michael Montelongo follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     June 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael Montelongo of Georgia, to be Assistant Secretary of the Air 
Force, vice Robert F. Hale.
                                 ______
                                 
    [The biographical sketch of Michael Montelongo, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Michael Montelongo
    Michael Montelongo is currently the Customer Care Consulting 
Manager at Ernst & Young in Atlanta, Georgia. Prior to that he was the 
Operations Consulting Manager at Ernst & Young from 1999 to 2000.
    Mr. Montelongo was the Chief of Staff and Director of Small 
Business Services at BellSouth from 1996 to 1998. He was a 
Congressional Fellow in the U.S. Senate from 1995-1996, a Special 
Assistant to the Army Chief of Staff from 1994-1995. From 1992 to 1994 
he was the Chief of Staff and General Manager for the U.S. Army at Fort 
Bliss, Texas, a Senior Analyst and Associate Professor at the U.S. 
Military Academy from 1988 to 1991.
    Mr. Montelongo graduated from U.S. Military Academy with a B.S. 
degree in 1977 and from Harvard Business School with a M.B.A. in 
Corporate Strategy, Finance in 1988. 
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael 
Montelongo in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Montelongo.
    Michael Montelongo, Jr.
    Michael (``Mike'') Joseph Montelongo.

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Financial Management and 
Comptroller).

    3. Date of nomination:
    June 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 20, 1955; New York, N.Y.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Debra Annette Tenison.

    7. Names and ages of children:
    Amanda K. Montelongo, 11.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    U.S. Army Command & General Staff College--8/91-6/92, Diploma--6/
92.
    Harvard Business School--8/86-6/88, MBA--6/88.
    U.S. Military Academy--7/73-6/77, BS--6/77.
    Xavier High School--9/69-6/73, Diploma--6/73.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
             Description                       Employer                 Location                  Dates
----------------------------------------------------------------------------------------------------------------
Music Minister.......................  Self-Employment........  St. Peter Chanel         4/01-Present
                                                                 Catholic Church
                                                                 Roswell, GA.
Music Minister.......................  The Catholic Church of   Marietta GA............  9/00-Present
                                        St. Ann.
Music Minister.......................  Self-Employment........  The Cathedral of Christ  8/00-Present
                                                                 the King, Atlanta, GA.
Sales Executive Consulting Manager...  Cap Gemini Ernst &       Atlanta, GA............  5/00-Present
                                        Young, U.S. LLC.
Consulting Manager...................  Ernst & Young LLP......  Atlanta, GA............  3/99-5/00
Staff Director.......................  BellSouth..............  Atlanta, GA............  11/96-10/98
Congressional Fellow.................  U.S. Army..............  U.S. Senate,             7/95-10/96
                                                                 Washington, DC.
Special Assistant....................  U.S. Army..............  Pentagon, Washington,    4/94-7/95
                                                                 DC.
Operations Officer, Executive Officer  U.S. Army..............  Fort Bliss, TX.........  7/92-4/94
Student..............................  U.S. Army..............  Fort Leavenworth, KS...  7/91-6/92
Assistant Professor..................  U.S. Army..............  West Point, NY.........  1/91-6/91
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    BellSouth Telecommunications, Inc., Atlanta, GA, Consultant (Cap 
Gemini Ernst & Young).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Harvard Business School Club of Atlanta, Vice President for 
Community Affairs.
    Georgia Hispanic Voter Registration Campaign, Board of Directors.
    Association of West Point Graduates Minority Outreach Committee, 
Member.
    National Society of Hispanic MBAs, Member.
    TEC Ministry and Catholic Parishes, Music Director.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Spirit of TEC Award (Service to youth ministry program).
    Department of the Army Legion of Merit, Meritorious Service Medal, 
Commendation Medal.
    Congressional Fellowship.
    Army Civil Schooling Fellowship.
    Service Academy and ROTC Scholarships.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Case study co-author of ``Florida Power Light Quality Improvement 
Story Exercise'' for Harvard MBA curriculum. Published in 1988.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Michael Montelongo.
    This 15th day of June, 2001.

    [The nomination of Michael Montelongo was reported to the 
Senate by Chairman Levin on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]
                              ----------                              

    [Prepared questions submitted to John J. Young, Jr., by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   June 21, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Respectfully,
                                   John J. Young, Jr.
cc: Senator John W. Warner,
   Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. I am committed to the complete and effective implementation 
of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been accepted and implemented 
and that they have clarified the responsibilities and authorities of 
the Secretary of Defense, the Secretaries of the Military Departments, 
the Joint Chiefs of Staff, and the Chairman of the Joint Chiefs. The 
effectiveness of our joint warfighting forces has improved as a result 
of these reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe the most significant value of these reforms to be 
improved joint warfighting capabilities. Our military is stronger and 
more lethal because our services can work better together. If 
confirmed, I will maintain and extend the Navy's commitment to the 
principles of joint warfare including interoperability and joint 
doctrine.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. If confirmed, I expect to play an active role in this 
administration's efforts to continue defense reforms. The Department 
has made excellent progress on acquisition reform and much of this 
program is due to the support of Congress in passing historic reform 
legislation. I will continue to emphasize reform and work with 
Congress, if and when additional legislation is required.
    I believe the Department will continue to need Congress' help over 
the course of the next several years as we continue to work this area. 
Legislative proposals may be necessary, but I am not aware of any in 
particular at this time. Most importantly, the Department will need 
your help in resisting new restrictions.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy (Research, Development, and 
Acquisition)?
    Answer. It is my understanding that, at the present time, the 
Assistant Secretary of the Navy (Research, Development, and 
Acquisition) serves as the Navy Acquisition Executive and has the 
authority, responsibility and accountability for all acquisition 
functions and programs within the Department of the Navy.
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that my responsibilities and experience as a 
professional staff member on the Senate Appropriations Defense 
Subcommittee as well as experience working in a variety of positions in 
private industry provides me with a solid background in research, 
development, and acquisition issues. In addition, my experience 
reviewing the DOD's most advanced procurement programs and research 
projects dovetails perfectly with the Department of the Navy's move 
toward a high technology future.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Navy for Research, Development, and Acquisition?
    Answer. I am professionally and technically prepared to assume the 
duties of the Assistant Secretary of the Navy (Research, Development, 
and Acquisition). If confirmed, I expect to have a close working 
relationship with the Secretary and the Under Secretary of the Navy. I 
would be aided in my duties with the expertise resident in the strong 
acquisition management team that currently exists within the 
Department. However, where opportunities exist for strengthening the 
team, I would seek to do so with members of the career workforce as 
well as individuals from industry and academia.
    Furthermore, I plan to establish a close working relationship with 
the operational side of the Navy and Marine Corps team including the 
Chief of Naval Operations, Commandant of the Marine Corps, as well as 
others. We will need to understand each others' problems and concerns 
and how we can help each other and ultimately provide sailors and 
marines with the required systems and platforms that are effective, 
reliable, and affordable.
    Lastly, I plan to establish a close working relationship with my 
counterparts in the Army and Air Force as well as the Under Secretary 
of Defense for Acquisition, Technology and Logistics to ensure 
coordination of key issues. I also expect to personally work with the 
Directors of the Ballistic Missile Defense Organization and the Defense 
Advanced Research Projects Agency to advance the warfighting 
capabilities of naval systems.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Rumsfeld would prescribe for you?
    Answer. The Secretary's Management Committee consisting of the 
Deputy Secretary of Defense, three Service Secretaries, and Under 
Secretary of Defense for Acquisition, Technology and Logistics has been 
discussed as an operating model for the Department of Defense. If 
implemented by the Secretary of Defense, this may result in the 
assignment of additional duties. However, at this point in time, I am 
not aware of any other additional duties.
    Question. In carrying out your duties, how will you work with the 
following: the Under Secretary of Defense (Acquisition, Technology, and 
Logistics); the Secretary of the Navy; the Under Secretary of the Navy; 
and the other Navy Assistant Secretaries.
    Answer. If confirmed as the Assistant Secretary of the Navy for 
Research, Development, and Acquisition, I plan to establish and 
maintain close relationships with each of those identified below to 
execute the best possible acquisition program for the Department.
    If confirmed as the Assistant Secretary of the Navy (Research, 
Development, and Acquisition), I would represent the Department of the 
Navy to the Under Secretary of Defense on all matters relating to Navy 
acquisition policy and programs. In addition, the Assistant Secretary 
of the Navy (Research, Development, and Acquisition), as the Service 
Acquisition Executive, provides recommendations on all Navy ACAT ID 
programs to the Under Secretary of Defense.
    Under the Goldwater-Nichols Act, the Secretary of the Navy has 
explicit authority to assign such of his powers, functions, and duties, 
as he considers appropriate to the Under Secretary of the Navy and to 
the Assistant Secretaries. It is my understanding that the Secretary of 
the Navy has made the Assistant Secretary of the Navy (Research, 
Development, and Acquisition) responsible to ``. . . establish policy 
and procedures and manage all research, development, and acquisition . 
. .'' within the Department and serve as the Navy's Service Acquisition 
Executive and Senior Procurement Executive, among other duties. If 
confirmed, I will work closely with the Secretary and Under Secretary 
in furtherance of these assignments and duties.
    As the Assistant Secretary of the Navy (Research, Development, and 
Acquisition) has responsibility for the Navy's acquisition system, the 
three other ASNs have responsibility for their respective areas: 
Manpower and Reserve Affairs, Installations and Environment, and 
Financial Management and Comptroller. If confirmed, I will work with 
the other ASNs on joint issues and on matters affecting their 
particular responsibilities as appropriate.
    Question. The Secretary of Defense has determined that the 
Secretaries of the military departments will represent their 
departments on the Defense Acquisition Board. This role has 
traditionally been performed by the Assistant Secretaries of Research, 
Development, and Acquisition.
    How do you believe this change will affect the acquisition role of 
the Assistant Secretary of the Navy (Research, Development, and 
Acquisition)?
    Answer. My understanding is that the Service Secretaries' 
participation in the Defense Acquisition Board process does not change 
the relationship between them and their Service Acquisition Executives.
    Question. In your view, is this change consistent with the role of 
the Assistant Secretary of the Navy (Research, Development, and 
Acquisition) as the Service Acquisition Executive?
    Answer. Yes.
    Question. To whom will the Navy's Program Executive Officers report 
on acquisition matters--to the Secretary of the Navy, the Assistant 
Secretary of the Navy (Research, Development, and Acquisition), or 
both?
    Answer. If confirmed, I do not anticipate changing the reporting 
process for acquisition matters. I understand that the Navy Program 
Executive Officers report to the Assistant Secretary of the Navy 
(Research, Development, and Acquisition), and the Secretary of the Navy 
is kept aware of, and is engaged in, program matters.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Navy (Research, Development, 
and Acquisition)?
    Answer. I believe the most important challenge facing the 
Department of the Navy today is how to maintain our Nation's naval 
forces in view of a rapidly evolving threat and today's fiscal 
realities. If confirmed as the Assistant Secretary of the Navy 
(Research, Development, and Acquisition), my challenge will be to 
integrate the research, development, and acquisition functions in the 
context of this complex equation. These critical challenges are:
    (1) Maintaining our technical advantage over all adversaries;
    (2) Developing and fielding affordable systems; and
    (3) Maintaining a viable industrial and technological base.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. These are interrelated challenges, and cannot be resolved 
individually. They must be addressed in the context of improving the 
way the acquisition community and the government conducts business.
    First, If confirmed, I will be an active participant in the 
acquisition reform initiatives being undertaken by the Secretary of 
Defense and the Secretary of the Navy. Only through comprehensive 
reforms can the barriers between the defense and commercial sectors of 
the economy be reduced or eliminated. Better integration of the defense 
and commercial sectors will leverage our Nation's technology base and 
reduce overhead costs. This will result in a technically superior and 
affordable product for our warfighters.
    I will work to ensure that the Navy and Marine Corps establish an 
achievable balance between resources and requirements. Once this 
balance is achieved, it will be important to properly fund the 
development and production efforts and avoid the funding disruptions 
that add serious inefficiency to fielding new capabilities. In 
addition, I will work to continue efforts to measure accurately the 
value delivered for each investment and procurement dollar.
    Second, I also believe we must ensure that our infrastructure and 
workforce capabilities respond to the changing world threat 
environment. If confirmed, I will work with the Secretary of the Navy 
to properly size our R&D and acquisition infrastructure to meet this 
new world reality.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Navy 
(Research, Development, and Acquisition)?
    Answer. At this time, as the prospective Assistant Secretary of the 
Navy (Research, Development, and Acquisition), I cannot comment on what 
may be the most serious problems in the performance of the functions of 
the position.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed and problems were to arise, I would do my best 
to solve problems as expeditiously as possible to maintain the 
integrity of the acquisition process.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues, which must be addressed by the Assistant Secretary of the Navy 
(Research, Development, and Acquisition)?
    Answer. I believe that the set of priorities stated by the 
Secretary of the Navy represent an excellent framework for the 
Department. These priorities include: improving the Navy's combat 
capability; enriching the lives of sailors and marines; swiftly 
incorporating technology across the total operation; and dramatically 
improving the Department's business practices. If confirmed, I will 
work hard to address these challenging priorities as part of the 
Department's acquisition process.
                  streamlining the acquisition process
    Question. Both Secretary Rumsfeld and Under Secretary Aldridge have 
indicated that they believe that there is a compelling need to 
streamline the acquisition process to reduce the fielding times for new 
weapons systems and capabilities.
    What specific steps could the Navy take to reduce cycle time for 
major acquisition programs?
    Answer. I believe that there are three key steps that we must take 
to reduce cycle time.
    First, we must employ demonstrated technology, military and 
commercial, as much as possible. We should use all available techniques 
and resources in order to identify developing and maturing technologies 
that can be used in our weapon and combat control systems.
    Second, we should time phase our set balanced, achievable 
requirements in order which will permit the Navy and Marine Corps to 
employ evolving technologies and to avoid applying technologies that 
have not been proven in the planned or near planned operating 
environment.
    Third, we must efficiently apply simulations, engineering test 
beds, and integrated testing and evaluation to rapidly deliver products 
and insert new technologies as they mature.
    Question. Do you believe that incremental or phased acquisition 
approaches could help address this problem?
    Answer. Yes, I believe incremental, phased, evolutionary 
acquisition or time-phased approaches, whatever term you choose to use, 
can be important and useful approaches to placing the best capabilities 
in the hands of our warfighters as rapidly as possible.
    Question. Some would point to the testing process as an overall 
area that should be scrutinized in this effort to reduce these cycle 
times. However, the increasing complexity and interaction of complex 
systems would tend to argue for achieving higher confidence during 
testing that these systems will work as advertised.
    If you are confirmed as the Assistant Secretary of the Navy 
(Research, Development, and Acquisition), how would you propose to 
achieve the appropriate balance between the desire to reduce 
acquisition cycle times and the need to perform adequate operational 
testing?
    Answer. I agree that testing is critical to providing confidence in 
new weapons systems that our sailors and marines deserve. A review of 
all acquisition processes (including testing) and process changes is 
necessary to improve acquisition cycle times. If confirmed, I would 
work to ensure an appropriate balance between reducing acquisition 
cycle times and adequate operational testing by capitalizing on the 
benefits of spiral development and new testing technologies.
    Question. Do you anticipate the need for changes in legislative or 
regulatory authority?
    Answer. As I mentioned earlier, I expect to play an active role in 
this administration's efforts to continue defense reforms. The 
Department has made excellent progress on acquisition reform and much 
of this is due to the support of Congress in passing historic reform 
legislation. If confirmed, I will continue to emphasize reform and work 
with Congress, if and when additional legislation is required.
    Question. One of the features of the Department's acquisition 
system that is frequently criticized is the extensive ``concurrency,'' 
or overlap, between the development and production phases of major 
weapon system acquisition programs.
    Where and under what conditions should concurrency be used in the 
development and production phases of Navy's major weapon system 
acquisition programs?
    Answer. Concurrency, or the overlap of program development onto 
production, must be carefully considered. In general, complex programs 
that attempt to complete development and operational testing without 
demonstrating technical maturity may increase program risk by incurring 
additional cost and delivery delays. A degree of concurrency may be 
acceptable between development and production phases when the remaining 
development is very low risk. It should be used in major weapon system 
acquisition programs when there are near-term threats that must be 
addressed, and suitable technology is available to address the threat. 
It is one methodology that may help reduce cycle time. For example, 
combining developmental testing and operational testing--when it makes 
sense and while still allowing for an independent assessment--is a form 
of concurrency that can streamline acquisition. If confirmed, I will 
strive to ensure concurrency is used only when appropriate to reduce 
cycle time without undue risk.
    Question. Do you believe there has been too much concurrency?
    Answer. The answer depends on the specific acquisition program. The 
amount of concurrency in a program is a business judgment--balancing 
risk, cost, production line flow, and manufacturing and design team 
personnel workload against (technology maturity, etc.) and early 
fielding of (cycle time reduction) capability for the warfighter. 
Concurrency is not always bad. When operational requirements can be met 
with low risk technologies such as commercial items, concurrent 
development and production concepts may be effectively used within 
acceptable schedule and cost risk.
    Question. If so, what steps should be taken to reduce such 
concurrency?
    Answer. Acquisition strategies should specifically address the 
benefits and risks associated with reducing lead-time through 
concurrency, and the including risk mitigation and testsing planned, to 
compensate for the use of a concurrent development strategy if 
concurrent development is used. During the milestone review process, I 
believe there must be an increased emphasis placed on the review of 
technical risk, cost management, and schedule performance associated 
with concurrency for those programs using a concurrent strategy. If 
confirmed, I will work to ensure that concurrent development is used 
only where appropriate.
    Question. Department of Defense Instruction 5000.2, which governs 
the acquisition of major weapon systems, was recently rewritten to 
require that new technologies be demonstrated in a relevant environment 
(preferably an operational environment) before they may be incorporated 
into DOD acquisition programs.
    Are you familiar with the revised version of DOD Instruction 
5000.2, and if so, what are your views on this revision?
    Answer. Yes, I am familiar with the revised version of DOD 
Instruction 5000.2. I believe that the revision supports ``spiral 
acquisition'' and provides the testing requirements that will ensure 
sailors and marines receive weapons systems that meet their needs in an 
operational environment.
    Question. Do you believe that the process of testing and 
demonstrating new technologies is more efficiently conducted in the 
context of major acquisition programs, or in stand-alone technology 
program?
    Answer. I believe that testing and demonstrating new technologies 
is appropriate in both stand-alone technology programs as well as major 
acquisition programs. To ensure the efficient use of our limited 
resources, new technologies must demonstrate their value before 
incorporating them into weapon systems. Once incorporated into a weapon 
system, they must demonstrate that they perform as intended and 
interact properly with the more complex system of systems. If 
confirmed, I will seek to ensure the proper testing and evaluation of 
new technologies.
    Question. Would the Navy's major acquisition programs be more 
successful if the Department were to follow the commercial model and 
mature its technologies with research and development funds before they 
are incorporated into product development programs?
    Answer. The increasing capability, complexity and interdependency 
of modern weapons are a result of the application of new technologies. 
As I mentioned previously, I believe that demonstrating new 
technologies is appropriate in both technology programs as well as 
major acquisition programs. If confirmed, I will work to ensure that 
new technologies receive the appropriate research and development 
funding.
                          test and evaluation
    Question. The Department has frequently been criticized for failing 
to adequately test its major weapon systems before they are put into 
production.
    Would you agree that a strong, independent Director of Operational 
Test and Evaluation is critical to the success of the Department's 
acquisition program?
    Answer. If confirmed, I will review roles and criticality of all 
participants in the Navy acquisition process. The critical ingredient 
to the success of Navy acquisition programs is a disciplined process 
for design, development, testing, and fielding. Success in this process 
also requires both adequate funding and sufficient time to complete 
thorough testing. If confirmed, I will seek to ensure realistic and 
complete testing of systems in development. The DOD Director of 
Operational Test and Evaluation provides the Department with an 
important assessment of the adequacy of our operational testing.
    Question. Would you recommend that the Department proceed with an 
acquisition program in the absence of a determination by the 
operational test agencies that the system is effective and suitable for 
combat?
    Answer. No, because under normal circumstances, I believe it would 
be unacceptable to proceed with an acquisition program that is not 
operationally effective and suitable. Further, it is my understanding 
that the Law 10 U.S.C. 2399 does not permit proceeding in the 
``absence'' of a favorable operational test agency determination (Title 
10 U.S.C.--Sec 2399, Para. 2.(b) 1.(1) and (b) 2.(2) 1.(A) and 2.(B)) 
and it would be wrong to field a system that has not been tested. In 
rare instances where there is an urgent and immediate need for a system 
to counter an emergent threat, there are procedures for the Milestone 
Decision Authority to determine necessary testing in order to meet the 
threat.
                         acquisition workforce
    Question. There has been considerable pressure to reduce 
acquisition organizations on the basis of absolute numbers. DOD has 
reduced its acquisition workforce approximately 50 percent, from the 
end of fiscal year 1990 to the end of fiscal year 1999, while the 
workload has essentially remained constant, and even increased by some 
measures.
    Are you concerned that reductions to the acquisition workforce will 
have a negative effect on effective program management, and if so, how 
do you plan to address this problem?
    Answer. If confirmed, I intend to review this issue carefully and 
develop appropriate strategies to ensure that the acquisition workforce 
continues to meet the evolving needs of the Department.
    Question. As the Department continues to emphasize contracting out 
and competitive sourcing, the skills, training and experience of the 
acquisition workforce will be critical in effectively managing these 
contracts. In addition, the Department's Acquisition Workforce 2005 
Task Force has reported that DOD will be faced with a significant 
demographic challenge as 50 percent of the acquisition workforce will 
be eligible to retire in the next 5 years.
    Does current acquisition workforce have the quality and training to 
adapt to new acquisition reforms, as well as to the increased workload 
and responsibility for managing privatization efforts?
    Answer. In my view, the workforce must become increasingly 
knowledgeable in all aspects of acquisition reform including 
privatization efforts. If confirmed, I will support the Department of 
the Navy's current emphasis on training and continuous learning for the 
acquisition workforce, with a focus on management and leadership, as 
well as technical competencies.
    Question. What is your view of the recommendations of the 
Acquisition Workforce 2005 Task Force and what role do you expect to 
play in implementing these recommendations?
    Answer. If confirmed, I will examine the recommendations of the 
taskforce to develop a strategy to shape the Department's acquisition 
workforce of the future.
                      acquisition process problems
    Question. The committee has been concerned about schedule and cost 
problems in a number of Navy acquisition programs. The acquisition 
system seems to have been surprised by some of these problems. Various 
Department officials have testified that the implementation of earned 
value management systems and integrated product teams should have 
provided greater visibility into cost and schedule, but there would 
appear to have been some shortcomings in that regard.
    What structural changes or policy changes to you feel are 
appropriate to help avoid similar problems on current and future Navy 
programs?
    Answer. I share the committee's view of the overall importance of 
this area. If confirmed, one of my primary thrusts will be to ensure 
that the Navy's acquisition programs are well-managed and that cost and 
schedule problems are kept to a minimum. Earned Value Management and 
Integrated Product Teams are powerful tools for achieving those 
objectives. I believe that it would be appropriate to review the Navy's 
acquisition programs and determine how Earned Value Management and 
Integrated Product Teams are being employed prior to considering any 
structural or policy remedies.
    Acquiring a grasp of the true state of the Navy's acquisition 
programs, as well as an understanding of the underlying causes of their 
condition, are essential precursors to improving performance.
                      ship acquisition information
    Question. In the past, the Navy has not provided Congress 
sufficient ``heads-up'' on key information regarding ship acquisition 
costs when known cost differences occur.
    What will your policy be on providing Congress information in a 
timely manner on cost changes regarding ship acquisition programs?
    Answer. If confirmed, my policy will be to provide Congress 
information on cost performance changes on ship acquisition programs in 
conformance with congressional statutory requirements in a timely 
manner.
    Question. The Navy's DDG-51 Industrial Base Study update provided 
to Congress in October 2000 and the Analysis of Certain Shipbuilding 
Programs provided in May 2001 were required by Public Law 106-398. Both 
studies fell short of the requirements stated in the law.
    What will your policy be on providing Congress the information it 
requires and specifically how do you intend to change the process to 
ensure that required reports provide the information required on the 
date required?
    Answer. If confirmed, my policy will be to provide Congress the 
information required by the requested date. I will review and implement 
appropriate internal process improvements as needed to meet 
congressional information deadlines.
    The Navy has recently rebaselined a number of acquisition programs. 
There are some programs that have been rebaselined more than once in 
the past 3 years.
    Question. What do you intend to do to review the process used to 
monitor program managers and the metrics they use to determine problem 
areas and progress of programs?
    Answer. If confirmed, I will examine the issue and if required 
develop metrics to evaluate programs both on a day-to-day management 
basis as well as at the corporate level.
    Question. What initiatives do you intend to take to correct the 
problems with the ship acquisition cost estimates that result in cost 
differences as the FYDP outyears become budget years?
    Answer. If confirmed, I will work with the senior leadership of the 
Department to develop a better budgetary process that would accurately 
reflect shipbuilding cost estimates for out-year ships. My goal would 
be to correct the current process to ensure that costs estimates are 
accurate and that budgets support these estimates.
                       aerospace industrial base
    Question. The Department has decided to make a winner-take-all 
selection for moving to engineering and manufacturing development phase 
of the Joint Strike Fighter program. This raises questions about the 
future viability of the aircraft industrial base.
    To what extent do you see a connection between maintaining a 
healthy aerospace production base and maintaining superior warfighting 
capabilities?
    Answer. The Navy Department has a vital interest in the concern 
assessing and ensuring that the aerospace industrial base has its 
ability to produce the aircraft and weapon systems needed by the Navy 
and Marine Corps in the 21st century. The health of the aerospace 
industrial base is a critical component to the future of our combat 
capabilities. If confirmed, I will strive to identify aerospace 
industrial base issues that may impact Navy acquisition programs and 
work with the OSD team and Congress to determine how best to resolve 
those issues.
                           depot maintenance
    Question. Some defense contractors have argued for a cradle-to-
grave approach where the production facility becomes the maintenance 
facility over the life of a system. Others argue that there are certain 
capabilities that must be maintained in government-owned facilities to 
ensure that the services will have ready access to this capability 
during a national emergency.
    How do you believe that the government should decide on the 
appropriate balance between these competing views of the maintenance 
strategy?
    Answer. I am aware that this issue has been studied numerous times 
before, both internal and external to the Department of Defense. While 
some additional savings may be achieved through further outsourcing, if 
I am confirmed, I would not support outsourcing decisions based solely 
on unsubstantiated or marginal savings. Alternately, I believe that 
outsourcing should be considered as a serious option when such a 
strategy is appropriate and can reduce cost and ensure weapon system 
performance and readiness.
    I believe that it is important to remember that depot maintenance 
is a core capability (measured in direct labor hours), which must be 
maintained in government-owned facilities to ensure that the services 
will have ready access during a national emergency. There are 
unacceptable risks associated with the wholesale outsourcing of all 
depot maintenance to the private sector.
    I am aware that there are public laws that impact this balance. For 
example, 10 U.S.C. 2464 requires DOD to maintain or establish core 
logistics capabilities to support weapons systems within 4 years of the 
initial operating capability. 10 U.S.C. 2466 requires that at least 50 
percent of each service's depot maintenance be accomplished by 
government employees (measured in dollars). If confirmed, I will work 
to ensure that the Department of the Navy complies with these statutes.
                   modernization and recapitalization
    Question. The Navy has just over 300 ships and the average age of 
Navy aircraft is approaching 20 years.
    Do you believe that the Navy can meet its modernization and 
recapitalization goals without a significant infusion of funds?
    Answer. I have been advised that the Department has had to realign 
significant funding from its recapitalization and modernization 
programs in order to meet increasing readiness and manpower demands. As 
a result, the shipbuilding and aircraft procurement accounts are 
substantially below the levels required to maintain our current force 
structure. Additionally, modernization programs have been reduced to 
historically low levels.
    Question. What, in your view, are ``leap-ahead'' technologies that 
the Navy is or should be pursuing?
    Answer. Today's complex threat environment, coupled with the 
accelerating pace of technological progress and the globalization of 
commerce, requires that the Navy pursue a variety of technology options 
in order to be ready for an uncertain future. It also means that what 
appear today to be ``leap-ahead'' technologies may not look that way 
tomorrow. I believe that enhancing the range, survivability, and 
precision of Navy and Marine Corps weapons and weapon platforms will 
allow the Navy and Marine Corps to defeat all future adversaries. If 
confirmed, I will work with both the Navy's in-house research 
organizations, the other services and defense agencies, and industry 
technology leaders to identify those technologies that have the highest 
payoff and transition them to the warfighter in a timely manner.
                    multi-mission maritime aircraft
    Question. The Navy has announced that it is embarking on a multi-
mission maritime aircraft (MMA) program, with procurement scheduled to 
commence later in this decade. At that time, the Navy will still be 
procuring the F/A-18 E/F and will be about to procure the Joint Strike 
Fighter.
    Do you think procurement of another major platform at the same time 
is possible?
    Answer. Clearly, there are many programmatic and fiscal challenges 
facing the naval services and Department of Defense at this time. It is 
my understanding that the Navy and OSD continue to study a variety of 
MMA options to keep procurement and operating costs within projected 
fiscal constraints. My experience with remanufacture programs leads me 
to believe that new procurement may be a more economical solution than 
remanufacture of legacy airframes. If confirmed, I will work with the 
senior Department leadership to structure an appropriate program that 
meets warfighting requirements within fiscal constraints.
                                  v-22
    Question. The V-22 Osprey program is at a critical juncture. If the 
recommendations of the Panel to Review the V-22 Program are 
implemented, there will be delay in the program, with redesign and 
follow-on testing required.
    How do you perceive your role, if confirmed, in ensuring that this 
program is adequate to ensure a safe, effective, and suitable platform 
is delivered to the Marine Corps and the Special Operations Command?
    Answer. I have not had an opportunity to review the V-22 Program in 
detail regarding the implementation of the Panel recommendations. If 
confirmed, I will work closely with the V-22 Program Executive 
Committee to establish the proper level of program oversight, and I 
will execute all of my assigned and delegated responsibilities and 
authorities to ensure a safe, effective and suitable V-22 is produced.
                    science and technologies issues
    Question. Under Secretary Aldridge has testified that the 
Department needs to be increasing its level of science and technology 
to a level roughly equivalent to 2.5 to 3 percent of the total DOD 
budget.
    Do you support such an increase in the technology base funding?
    Answer. Naval science and technology activities are important to 
the Navy, Marine Corps and our Nation. If confirmed, I will review the 
S&T budget to ensure the Department and the Nation's needs are met.
    Question. Over the last 2 years, the Navy has undertaken a lengthy 
planning process to identify ``grand challenges'' and ``future naval 
capabilities'' to serve as a focus for prioritizing future S&T program 
needs.
    Are you familiar with this review, and if so, do you support it?
    Answer. I am not familiar with this review. If confirmed, I will 
review both the Grand Challenges and the Future Naval Capabilities 
science and technology programs.
    Question. Do you expect this planning process to result in a 
significant realignment of Navy science and technology budgets for 
fiscal years 2002 and 2003?
    Answer. I have no insight into the fiscal years 2002 and 2003 
budget process of the Department of the Navy, so I cannot provide a 
response to this question.
    Question. Over the last 3 years, a number of outside panels have 
been highly critical of the performance of the service laboratories. 
These panels have indicated that the civil service system is slowly 
calcifying the defense laboratories and depriving them of the new 
talent that they need to continue to make a valuable contribution to 
defense science and technology. Congress has enacted a number of 
legislative provisions to try to address these problems.
    Do you believe that these legislative provisions are having the 
desired effect, or do we need to consider additional measures, such as 
the partial privatization of one or more laboratories?
    Answer. I believe there will always be a need for a permanent cadre 
of world-class scientists and engineers in the DOD labs and centers. 
While some legislative provisions have helped, the current Federal 
system may no longer be capable of providing or retaining the very best 
scientists and engineers in this economy. As such, additional 
legislation may be necessary. If confirmed, I would work with the other 
services, OSD and Congress to develop proposals that will improve the 
laboratory system.
    Question. Are there other steps that you would recommend to 
increase the flexibility and performance of the defense laboratories?
    Answer. If confirmed, I will examine methods to increase the 
performance of the Navy's laboratories and centers.
    Question. The Department of Defense has attempted to make 
increasing use of technologies developed in the private sector. These 
technologies frequently need to be adapted for defense use--either at 
the front end, as they are being developed, or at the back end, after 
they have been developed. The Dual Use Applications Program (DUAP) and 
the Commercial Operations and Support Savings Initiative (COSSI) have 
been funding mechanisms through which DOD has supported such 
adaptations.
    Are you familiar with the DUAP and COSSI programs, and do you know 
if the Department plans to continue funding these programs?
    Answer. I am familiar with the Department's DUAP and COSSI 
programs. I have no insight into the budget process of the Department 
of the Navy, so I cannot provide a response to this question.
                       ocean sciences and policy
    Question. There remains an essential need to maintain assured 
access in the littoral regions of the world.
    How do you intend to assure there are adequate resources available 
for such critical ocean science issues as anti-submarine warfare, mine 
warfare, ocean surveillance, and environmental prediction capabilities?
    Answer. I understand that the research conducted in ocean science 
is transitioned to the Navy's operational community. This is 
accomplished by close working relationships between the research 
community and the operational program sponsors, including the 
Oceanographer of the Navy, who identify operational requirements. As 
long as these important mission areas are supported by operational 
requirements, if confirmed, I will support the allocation of resources 
to continue the science necessary to support them.
    Question. Do you support the need for a robust Navy budget for 
basic and applied research? In this regard, what new priorities in the 
ocean sciences would you address?
    Answer. Maintaining a robust naval science and technology program 
is important to the future of our Navy, Marine Corps and our Nation. If 
confirmed, I will become familiar with the Department's ocean sciences 
program. In general, I believe that important priorities for all 
science and technology programs are maintaining strong support for the 
academic community and building industry involvement.
    Question. The upcoming Presidential Commission on Ocean Policy 
presents the unique opportunity to assess our national ocean programs.
    What is the Navy doing to work with other Federal agencies to 
support this new commission?
    Answer. It is my understanding that the Chief of Naval Operations 
has designated the Oceanographer of the Navy as his principal point of 
contact for the Commission. Both the Oceanographer of the Navy, and the 
Office of Naval Research are coordinating their activities with other 
agencies, through formal participation in the Interagency Working Group 
of the National Oceanographic Partnership Program, as well as the State 
Department Ocean Policy Interagency Working Group.
    Question. What role could the National Ocean Research Leadership 
Council (NORLC) play to ensure that the Commission is a success?
    Answer. I am not familiar with the NORLC. If confirmed, I will gain 
an understanding of the Council and the role it plays in the area of 
ocean research.
    Question. The National Oceanographic Partnership Program (NOPP) 
recently took the first steps to manage an evolving integrated ocean 
observation system.
    Will you support this NOPP effort? Will your support include 
financial commitment?
    Answer. I am not familiar with the NOPP. If confirmed, I will gain 
an understanding of the Program and the role it plays in the area of 
ocean research.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy (Research, Development, and Acquisition)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
    1. Senator Thurmond. The Department has identified the aging 
acquisition workforce as one of the critical issues facing the 
Department. What is your understanding of the problem? What 
recommendations do you have to resolve this problem? 
    Mr. Young. It is my understanding that the expected large-scale 
retirements of the ``baby-boomer'' generation, coupled with a tight 
labor market pose challenges to sustaining workforce capabilities in 
the near future. It appears that the Department no longer has the on-
board strength in the younger age groups to naturally replace employees 
as they retire or as they simply leave for other work.
    To improve this situation, I believe the focus needs to be on both 
attrition and retirement. We must reinvigorate the hiring of new 
college graduates as well as more experienced people, and we must take 
advantage of the best human resource and business management practices 
available. As an increasing proportion of our workforce has the 
opportunity to retire in the next decade, we must prepare for an 
orderly transfer of knowledge. We must offer opportunities for 
professional growth and continue to provide interesting and challenging 
work to hire and retain the best and brightest.


    2. Senator Thurmond. Although our Navy's nuclear submarine fleet is 
the envy of all nations, most nations prefer conventional power 
submarines because they are cheap and easy to maintain. Since there is 
a significant market for these conventional submarines, are you aware 
of any interest by U.S. shipyards to build conventional submarines for 
foreign military sales and would you support such a program? 
    Mr. Young. Senator, there are two circumstances in which U.S. 
shipyards are expressing interest regarding the construction and export 
of conventional submarines for foreign customers. The most recent 
circumstance involves the decision made during the 2001 Taiwan Arms 
Talks this past April to approve the release of diesel submarines to 
Taiwan. Northrop Grumman (Ingalls Shipbuilding) possesses a marketing 
license to discuss potential opportunities with Taiwan. General 
Dynamics (Electric Boat) has also indicated they will be approaching 
the USN in the near future for a marketing license. In the second 
circumstance, which is not contemplated as a foreign military sale, 
Northrop Grumman (Ingalls Shipbuilding) is seeking to construct, under 
license at its yard in Mississippi, two submarines of Dutch design for 
Egypt.
    I would support the construction of conventional submarines in U.S. 
shipyards for export with the adherence to critical submarine 
technology transfer restrictions. There must be adequate measures in 
place to protect against the transfer of nuclear submarine technology 
to foreign nations. In addition, there are other sensitive submarine 
construction and design technologies that make modern U.S. submarines 
superior to the rest. It is for these reasons that our critical 
submarine technologies must be protected. Such a task is challenging, 
given that our submarine industry's experience base has been 
exclusively in nuclear submarine design and construction for the past 
40 years. This issue was addressed in detail in the Secretary of the 
Navy's 1992 Report to Congress.


    3. Senator Thurmond. What are your views on the vitality and 
competitiveness of our shipbuilding industrial base? 
    Mr. Young. Since 1990, the Navy's active fleet and Navy 
shipbuilding infrastructure have seen considerable downsizing: from 550 
ships to 316 ships today and from 14 private shipyards to 6 private 
shipyards. During the 1980s, the Navy was ordering an average of about 
20 ships per year. That average has now fallen to about eight ships per 
year during the 1990s leaving the shipbuilding industry with 
overcapacity.
    I believe the Navy's current shipbuilding plan is barely adequate 
to sustain the remaining naval shipbuilding industrial base including 
the suppliers that provide supporting equipment and associated 
engineering services. Furthermore, I understand that the Office of the 
Secretary of Defense has expressed a similar concern and is examining 
these critical national shipbuilding issues.
    If confirmed, I plan to work with Navy, DOD, other government, and 
industry leaders to identify mechanisms to improve our Nation's 
shipbuilding industrial base.
                                 ______
                                 
    [The nomination reference of John J. Young, Jr., follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                     June 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John J. Young, Jr., of Virginia, to be Assistant Secretary of the 
Navy, vice Herbert Lee Buchanan III.
                                 ______
                                 
    [The biographical sketch of John J. Young, Jr., which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of John J. Young, Jr.
    John J. Young, Jr., is currently a Professional Staff Member on the 
Senate Appropriations Committee, Subcommittee on Defense, a position he 
has held since 1993. Prior to that, he was an AIAA Congressional Fellow 
with the Subcommittee on Defense from 1991 to 1993.
    From 1988 to 1993, Mr. Young was a Member of the Technical Staff at 
the Sandia National Labs. He was also a Member of the Technical Staff 
at Rockwell International from 1987 to 1988. From 1985 to 1986, he was 
an Associate Staff Member with the Engineering Group at The BDM 
Corporation, and from 1980 to 1985 he was a Co-operative Ed. Engineer 
with General Dynamics. Finally, in 1984, he was a Press Intern for 
former Senator Sam Nunn.

    Mr. Young graduated from the Georgia Institute of Technology with a 
B.A. Degree in Engineering in 1985 and from Stanford University with an 
M.S. Degree in Aeronautics in 1987.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by John J. Young, 
Jr., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Jacob Young, Jr.

    2. Position to which nominated:
    Assistant Secretary of the Navy (Research, Development, and 
Acquisition).

    3. Date of nomination:
    June 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 29, 1962; Newnan, Georgia.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara Joan Schleihauf.

    7. Names and ages of children:
    Nathan Jacob Young, 9.
    William Joseph Young, 7.
    Kathryn Elizabeth Young, 4.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Stanford University; 10/85-6/87; Master's in Aeronautics and 
Astronautics; Stanford, CA.
    Georgia Institute of Technology; 6/80-6/85; Bachelor's in Aerospace 
Engineering; Atlanta, GA.
    Newnan High School; 9/78-6/80; High School Diploma; Newnan, GA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    United States Senate, Committee on Appropriations; Washington, DC, 
Professional Staff Member, Defense Appropriations Subcommittee, 
Washington, DC; 12/93-Present.
    Sandia National Laboratory; Albuquerque, New Mexico, Member of the 
Technical Staff serving the U.S. Senate as an American Institute of 
Aeronautics and Astronautics (AIAA) Congressional Fellow on the U.S. 
Senate Defense Appropriations Subcommittee, Washington, DC; 1/91-12/93.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    No additional positions.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member--American Institute of Aeronautics and Astronautics.
    Member--Jamestown Parent Teacher Association.
    Member--National Presbyterian Church.
    Member--The Briarean Society, Phi Kappa Phi, Tau Beta Pi, Sigma 
Gamma Tau, and Phi Eta Sigma college honor societies.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Selected for the 1996 National Security Leadership Course at 
Syracuse University.
    Selected for the 1996 class of Georgia Institute of Technology 
Council of Outstanding Engineering Alumni.
    Selected for the 1993-94 Massachusetts Institute of Technology 
Seminar XXI program.
    1993 Who's Who in America in Science and Engineering.
    AIAA 1991 Congressional Fellow.
    AIAA 1991-1994 National Public Policy Committee.
    AIAA 1989-1991 Region IV Deputy Director for Public Policy.
    AIAA 1988-1989 Region II Director-at-Large for Young Member 
Activities.
    AIAA Atlanta Section 1988 Mini-Symposium Outstanding Young Engineer 
Award.
    1985-87 Stanford University College of Engineering Fellowship.
    1986-87 General Electric Foundation Fellowship.
    1986 Outstanding Young Men of America.
    1983--1984 Sam Nunn U.S. Senate Intern Program. 1984-85 AIAA/
General Dynamics Scholarship.
    1980-85 Georgia Tech Lowry, McLendon, Fitten and Towers 
Scholarships.
    Member of the Phi Kappa Phi, Tau Beta Pi, Sigma Gamma Tau, Phi Eta 
Sigma, and The Briarean Society.
    1984-85 Briarean of the Year (Cooperative Education Honorary 
Society).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Key Objectives for the Strategic Defense Initiative''; American 
Institute of Aeronautics and Astronautics (AIAA) Student Journal; Fall, 
1986.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    While I have spoken to groups and conferences occasionally over the 
last 5 years, I have not written formal speeches for these sessions.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   John J. Young, Jr.
    This 13th day of June, 2001.

    [The nomination of John J. Young, Jr., was reported to the 
Senate by Senator Warner on July 11, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 12, 2001.]


  NOMINATIONS OF JOHN P. STENBIT TO BE ASSISTANT SECRETARY OF DEFENSE
 FOR COMMAND, CONTROL, COMMUNICATION, AND INTELLIGENCE; DR. RONALD M. 
 SEGA TO BE DIRECTOR OF DEFENSE, RESEARCH AND ENGINEERING; MICHAEL L. 
 DOMINGUEZ TO BE ASSISTANT SECRETARY OF THE AIR FORCE FOR MANPOWER AND 
 RESERVE AFFAIRS; PAUL MICHAEL PARKER TO BE ASSISTANT SECRETARY OF THE 
 ARMY FOR CIVIL WORKS; DR. MARIO P. FIORI TO BE ASSISTANT SECRETARY OF 
    THE ARMY FOR INSTALLATIONS AND ENVIRONMENT; H.T. JOHNSON TO BE 
ASSISTANT SECRETARY OF THE NAVY FOR INSTALLATIONS AND ENVIRONMENT; AND 
    NELSON F. GIBBS TO BE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
                     INSTALLATIONS AND ENVIRONMENT

                              ----------                              


                         TUESDAY, JULY 31, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Cleland, Akaka, 
E. Benjamin Nelson, Carnahan, Warner, Inhofe, and Allard.
    Other Senators present: Senators Lott and Cochran.
    Member of Congress present: Mr. Pickering.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Gerald J. Leeling, counsel; 
Michael J. McCord, professional staff member; and Arun A. 
Seraphin, professional staff member.
    Minority staff members present: Romie L. Brownlee, 
republican staff director; Judith A. Ansley, deputy staff 
director for the minority; Charles W. Alsup, professional staff 
member; Brian R. Green, professional staff member; William C. 
Greenwalt, professional staff member; Carolyn M. Hanna, 
professional staff member; Patricia L. Lewis, professional 
staff member; Ann M. Mittermeyer, minority counsel; Suzanne 
K.L. Ross, research assistant; Scott W. Stucky, minority 
counsel; and Richard F. Walsh, minority counsel.
    Staff assistants present: Gabriella Eisen, Michele A. 
Traficante, and Nicholas W. West.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Davelyn Noelani 
Kalipi, assistant to Senator Akaka; Eric Pierce, assistant to 
Senator Ben Nelson; Brady King, assistant to Senator Dayton; 
John Gastright, assistant to Senator Thurmond; John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; and 
Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of seven individuals to 
high positions in the Department of Defense. Because of the 
number of nominees, we have divided today's hearing into two 
panels. During the first panel, we will consider the 
nominations of John Stenbit to be Assistant Secretary of 
Defense for Command, Control, Communication, and Intelligence; 
Ron Sega to be Director of Defense Research and Engineering; 
and Michael Dominguez to be Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs.
    On behalf of the entire committee, I would like to welcome 
you and your families to the Armed Services Committee. We have 
a tradition of asking our nominees to introduce family members 
who are present, so let me start with that. We will start with 
you, Mr. Dominguez. If you would, introduce any family members 
you have with you.
    Mr. Dominguez. Thank you, Mr. Chairman. I have with me 
today my wife, Sheila, and my daughter, Michelle.
    Chairman Levin. Welcome both of you. Mr. Stenbit.
    Mr. Stenbit. I have with me my wife, Albertine.
    Chairman Levin. Thank you. Dr. Sega.
    Dr. Sega. Mr. Chairman, it is my pleasure to introduce my 
wife, Ann, who has provided me tremendous support.
    Chairman Levin. We welcome all of you. None of these 
nominees would be able to serve in these positions without the 
support of their families, so we thank them for their service, 
and we also thank you for your service.
    Mr. Stenbit previously served as the Deputy Director of 
Telecommunications at Command and Control Systems in the 
Defense Department, and most recently as an executive vice 
president at TRW. Dr. Sega's military and academic career 
includes service as a Brigadier General in the Air Force, an 
astronaut on two Space Shuttle missions, and most recently at 
the University of Colorado.
    Mr. Dominguez's military and civilian experience includes 
service in the U.S. Army and as Assistant Director of Space 
Information, Warfare, and Command and Control, Director for the 
Chief of Naval Operations.
    The committee looks forward to your testimony. Before I 
call upon Senator Allard for his introduction, I will call upon 
my good friend and colleague, Senator Warner, for his opening 
statement.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
welcoming the nominees, and would ask unanimous consent that my 
statement, which is biographical, be put in the record.
    I would just add a personal comment. Senator Levin and I 
have been privileged to serve here on this committee some 23 
years now. We have seen a lot of appointees, and I say 
unreservedly I think our President and the Secretary of Defense 
have really picked a first-class team to serve our Nation. I 
use the word pick. I have seen several draft choices, and I do 
not know how they persuaded you to come back and give up what 
you had in the private sector, but that again lends itself to 
the commendation of our President and others who have worked so 
hard to get you here.
    To the families, I have had some modest experience in the 
building, and I remember very well the day I sat in this chair 
before some of you were on Planet Earth, and I would just be 
mindful of the wives particularly, and children, because any 
decisions made after 7:00 are usually reversed the next 
morning, so bring them home, freshen them up, and send them 
back for the next day.
    Thank you very much.
    Chairman Levin. That is unless they are responding to 
congressional inquiries at night. [Laughter.]
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in welcoming the nominees and their families. We have a 
distinguished group of nominess before us this morning.
                              first panel
    Mr. Sega--Major General Sega--has had a remarkable career in 
academia, research, and government service. He was recently promoted to 
the rank of Major General in the Air Force Reserve, and is currently 
assigned as Mobilization Assistant to the Commander, Headquarters, Air 
Force Space Command. General Sega is a former astronaut, having made 
flights on the Space Shuttle in 1994 and 1996, and also a distinguished 
academician. He is currently the Dean of the College of Engineering and 
Applied Science at the University of Colorado. General Sega, welcome, 
and thank you for your willingness to serve in this important Defense 
position.
    Mr. Stenbit, if confirmed, will be returning to the Pentagon for an 
additional tour. He served previously in the Office of the Secretary of 
Defense as Principal Deputy Director of Telecommunications and Command 
and Control Systems and as a Staff Specialist for Worldwide Military 
Command and Control Systems. In addition to his impressive credentials 
as an Executive Vice President for TRW Corporation's Aerospace and 
Information Systems, Mr. Stenbit has served as Chairman of the Science 
and Technology Advisory Panel to the Director of Central Intelligence. 
Mr. Stenbit was also a member of the Science Advisory Group to the 
Directors of Naval Intelligence and the Defense Communications Agency.
    Michael L. Dominguez, the President's nominee for Assistant 
Secretary of the Air Force (Manpower and Reserve Affairs), has a 
distinguished career of military and government service. He is a 
graduate of the United States Military Academy at West Point, and 
served on active duty in Europe with the 1st Battalion, 509th Airborne 
Infantry. In 1983, Mr. Dominguez joined the Office of the Secretary of 
Defense working in the Program Analysis and Evaluation Division. He 
ultimately rose through the ranks to become PA&E's Director for 
Planning and Analytical Support. Mr. Dominguez later joined the staff 
of the Chief of Naval Operations where he served as the Associate 
Director for Programming and, more recently, as the Assistant Director 
for Space and Information Warfare within the OPNAV Command and Control 
Directorate. Thank you for your willingness to serve in this vitally 
important manpower policy position.
                              second panel
    I would like to introduce to the committee a constituent of mine, 
Gen. H.T. Johnson.
    Gen. H.T. Johnson has over 41 years of service to our Nation in 
military and government service. He is a combat veteran with 423 
missions as a forward air controller in Vietnam. He became one of the 
U.S. Air Force's most accomplished senior leaders, serving as Deputy 
Commander in Chief of the U.S. Central Command; Director of the Joint 
Staff under Admiral William Crowe; and as Commander in Chief of the 
United States Transportation Command and Military Airlift Commands. He 
served as TRANSCOM Commander during Operations Desert Shield and Desert 
Storm, and led one of the most rapid, concentrated, and highly 
successful movements of troops, equipment, and supplies in American 
military history. Subsequent to his retirement from the Air Force, he 
served as a member of the 1993 Base Realignment and Closure Commission. 
We welcome General Johnson and his family, and thank him for his 
willingness to return to government service.
    Mike Parker has a distinguished career in government. As a member 
of the U.S. House of Representatives from 1989 through 1999, Mr. Parker 
ably represented the Fourth Congressional District of Mississippi. In 
this capacity, he served on the Appropriations Committee and its 
Subcommittees on Energy and Water Development and Military 
Construction. He also served on the House Budget, Transportation, 
Education and the Workforce, and Veterans' Affairs Committees. We thank 
you for your willingness to return to service in the Executive Branch 
in this most challenging assignment.
    Dr. Mario Fiori, the nominee for Assistant Secretary of the Army 
(Installations and Environment) has achieved great success in both his 
military and government careers to date. After graduating from the U.S. 
Naval Academy, he qualified as a nuclear submariner and served in 
U.S.S. Pargo (SSN 650), an attack submarine, U.S.S. George Washington 
Carver (SSBN 656), a Poseidon missile submarine, and as Commanding 
Officer of U.S.S. Spadefish (SSN 668). Following his retirement, he 
joined the Senior Executive Service in the Department of Energy. Dr. 
Fiori served as the Departmental representative to the Defense Nuclear 
Facilities Safety Board. In 1993, the Secretary of Energy assigned Dr. 
Fiori to be Manager of the Savannah River Site in Aiken, South 
Carolina.
    I note that among those in attendance is Dr. Fiori's daughter, 
Cristina, who drove down from Allentown, Pennsylvania, for the 
occasion. Cris served this committee with great diligence and 
dedication as a Staff Assistant, and we are delighted to have her 
present with us today.
    Nelson Gibbs is currently the Executive Director of the Cost 
Accounting Standards Board within the Office of Management and Budget. 
Following a tour of active duty in the U.S. Army, he built an 
impressive record of accomplishment in the private sector, gaining 
expertise in the fields of defense industry management and financial 
oversight. After rising to the position of Corporate Comptroller with 
the Northrop Grumman Corporation, he assumed his present position in 
OMB. Mr. Gibbs, welcome.
    Mr. Chairman, I look forward to hearing from the nominees.

    Chairman Levin. I think we will call on you, Senator 
Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, thank you, and Senator 
Warner, and my fellow members on the committee, I want to thank 
you for allowing me to introduce someone who I believe is an 
extraordinary individual sitting here on my right, and that is 
Dr. Ron Sega. He is the nominee to be the Director of Defense 
Research and Engineering.
    I have known Ron for many years, and I have found him to be 
one of the brightest and most forward-thinking individuals I 
have ever met. Each year I hold defense and space roundtables 
in Colorado, and Ron has been a very valuable resource with his 
participation in those roundtables.
    I believe his resume speaks for itself. You reviewed some 
of that, Mr. Chairman, but I would like to go and just again 
highlight a few of those areas that I think are very 
significant. Since 1996, Dr. Sega has been the Dean of the 
College of Engineering and Applied Science at the University of 
Colorado at Colorado Springs, where he has taught since 1982.
    Ron was instrumental in adding six degrees to the college, 
realigning the program with the needs of information 
technology, aerospace, and complex electronics sectors, and in 
1990 Dr. Sega joined NASA, serving as an astronaut from 1991 
until 1996. During that time, he participated in two Space 
Shuttle missions, STS-60 and STS-74, and was Director of 
Operations in Russia and was the coprincipal investigator of 
the windshield facility, plus many other technical assignments.
    Dr. Sega has also taught physics at the University of 
Houston and at the Air Force Academy in Colorado Springs. In 
addition to his teaching duties, Dr. Sega is currently serving 
this country in the Air Force Reserve. He has achieved a rank 
of Major General, and is the mobilization assistant to the 
Commander at Air Force Space Command.
    After graduating from the Air Force Academy, Dr. Sega has 
been an instructor pilot and has been involved with space 
systems operations and plans. To name a few of the many awards 
he has received, Dr. Sega has been awarded two honorary 
doctorates. He has been named Reserve Officer of the Year by 
the U.S. Air Force and the Air Force Space Command, named 
Educator of the Year by Inroads Colorado, received the NASA 
Outstanding Leadership Award Medal for his service as the 
payload commander on STS-76, and was a distinguished graduate 
at the Air Force Academy.
    However, beyond all these awards and commendations, I can 
personally attest to the fact that he is a man of vision, 
honor, and dedication. This is seen best through his service to 
the students at the University of Colorado at Colorado Springs. 
He has been a force behind establishing an Office of Student 
Support to improve recruiting and training of undergraduate 
students, diversity, interaction with K through 12, and 
coordination of scholarships and internship activities.
    He also sponsored new student clubs for the college, 
including the American Indian Science and Engineering Society, 
the National Society of Black Engineers, the National Society 
of Hispanic Professional Engineers, the American Society of 
Mechanical Engineers, and the American Institute of Aeronautics 
and Astronautics.
    Mr. Chairman, I heard Senator Roberts once say, true 
believers are needed in the area of science and technology 
research. I believe Dr. Sega fits that description. He is a 
true believer, and is perfectly suited to be the Director of 
Defense Research and Engineering. I look forward to his 
confirmation, and thank you for consideration of this fine man, 
Mr. Chairman.
    Chairman Levin. Thank you, Senator Allard, for your fine 
introduction.
    Senator Warner. I join in that, Senator Allard. You have 
given him a real rocket-boost take-off.
    Chairman Levin. Today's nominees have all responded to the 
committee's prehearing policy questions and to our standard 
questionnaire, and these responses will be made a part of the 
record.
    The committee has also received the required paperwork on 
each of the nominees, and we will be reviewing that paperwork 
to make sure that it is in accordance with the committee's 
requirements.
    There are several standard questions we ask every nominee 
who comes before the committee, and your response to advance 
policy questions. Do you agree, each of you, to appear as a 
witness before congressional committees when called to ensure 
that briefings, testimony, and other communications are 
provided to Congress?
    Mr. Dominguez. Yes, sir.
    Mr. Stenbit. Yes, sir.
    Dr. Sega. Yes, sir.
    Chairman Levin. Have you adhered to the applicable laws and 
regulations governing conflict of interest?
    Mr. Dominguez. Yes, sir.
    Mr. Stenbit. Yes, sir.
    Dr. Sega. Yes, sir.
    Chairman Levin. Did you assume any duties or undertake any 
actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Dominguez. No, sir.
    Mr. Stenbit. No, sir.
    Dr. Sega. No, sir.
    Chairman Levin. Will you ensure the Department complies 
with deadlines established for requested communications, 
including prepared testimony and questions for the record in 
hearings?
    Mr. Dominguez. Yes, sir.
    Mr. Stenbit. Yes, sir.
    Dr. Sega. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers to responsible requests?
    Mr. Dominguez. Yes, sir.
    Mr. Stenbit. Yes, sir.
    Dr. Sega. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Mr. Dominguez. Yes, sir.
    Mr. Stenbit. Yes, sir.
    Dr. Sega. Yes, sir.
    Chairman Levin. Let me now call upon our nominees for any 
opening remarks you may wish to make. Mr. Dominguez.

  STATEMENT OF MICHAEL L. DOMINGUEZ, NOMINEE TO BE ASSISTANT 
  SECRETARY OF THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Dominguez. Thank you, Mr. Chairman, Senator Warner, and 
other distinguished members of the committee. I am honored to 
appear before you this morning as President Bush's nominee to 
serve as the Assistant Secretary of the Air Force for Manpower 
and Reserve Affairs. I would like to thank the President, the 
Secretary of Defense, and the Secretary of the Air Force for 
their support and confidence in me by recommending me for this 
position. If confirmed, I look forward to the opportunity to 
continue service to my country and to the men and women of the 
United States Air Force.
    Mr. Chairman, I can think of no finer job that directly 
affects the lives of Air Force personnel, enlisted, officer, 
active, Guard, Reserve, and civilian, than the position for 
which I have been nominated. If confirmed, I pledge my full 
support and energies to take care of Air Force people. Toward 
that end, I would plan to focus my attention on three key 
issues. First is recruiting and retention. They go hand-in-
glove, and their importance cannot be overstated, especially in 
light of the very competitive tight labor market.
    From my perspective, viable recruiting and retention 
programs are critical links to keeping the total force ready 
for the future. I pledge to you my support to keep this a top 
priority.
    Second, I believe we must continue to focus on our quality-
of-life programs that are so essential to meeting our 
readiness, recruiting, and retention goals. Among those are 
top-notch military health care, safe, affordable family 
housing, an improved workplace environment, enhanced family and 
community programs, improved educational opportunities, and 
last, if confirmed, I will work to improve our personnel 
systems to facilitate management of the military and civilian 
workforce for the 21st century.
    Thanks to this committee, we are already on this path. We 
need to continue this momentum, improving the hiring process, 
addressing compensation and benefits, and focusing on programs 
that will help us attract men and women to a life of service to 
the Nation.
    In closing, if confirmed, I will look forward to an active 
relationship with you, Mr. Chairman, Senator Warner, and the 
members of this committee as we work together to support and 
care for men and women and families who selflessly serve our 
Nation and its Air Force.
    Thank you.
    Chairman Levin. Thank you.
    Mr. Stenbit.

STATEMENT OF JOHN P. STENBIT, NOMINEE TO BE ASSISTANT SECRETARY 
      OF DEFENSE FOR COMMAND, CONTROL, COMMUNICATION, AND 
                          INTELLIGENCE

    Mr. Stenbit. Thank you, Mr. Chairman, Senator Warner. I 
would like to thank Secretary Rumsfeld for picking me, as 
Senator Warner said, and President Bush for nominating me. I 
have had the opportunity to briefly meet with Senator Warner 
and Senator Inhofe. I look forward to meeting with Senator 
Nelson and you Mr. Chairman as that need arises, if I am 
confirmed. I am very grateful you are taking the time to 
consider this application this morning.
    I have been nominated to be Assistant Secretary of Defense 
for Command, Control, Communications, and Intelligence. That is 
quite a mouthful. All of my reviewing of the office says that 
it is a handful, and I look forward to having your support as 
we move forward, if I am confirmed. Thank you.
    Chairman Levin. Mr. Stenbit, thank you very much.
    Dr. Sega.

  STATEMENT OF DR. RONALD M. SEGA, NOMINEE TO BE DIRECTOR OF 
                DEFENSE RESEARCH AND ENGINEERING

    Dr. Sega. Thank you, Mr. Chairman. I would like to thank 
Senator Allard for his kind introduction, and Chairman Levin, 
Senator Warner, and members of the Armed Services Committee, it 
is truly an honor and privilege for me to be here before this 
committee today.
    I would like to thank President Bush, Secretary Rumsfeld, 
and Under Secretary Aldridge for their support and trust in 
nominating me for the position of Director of Defense Research 
and Engineering. I appreciate their confidence, and I pledge 
that, if confirmed, I will do everything that I can to justify 
their confidence while serving in this important position. 
Thank you.
    Chairman Levin. Thank you, Dr. Sega. We will just start 
with rounds of 6 minutes each. First, Mr. Stenbit, let me ask 
you a few questions.
    In your response to the advance policy questions you said 
the following: ``In light of U.S. dependence on vulnerable 
space assets, it would be contrary to U.S. security interests 
not to develop, test, and deploy the means of deterring attack 
on and defending space systems.''
    Now, when you say the United States must develop the means 
of deterring attack on our space systems, is it your view that 
we should develop and deploy offensive weapons in space?
    Mr. Stenbit. I believe that the deterrence is an act that 
is in the eyes of the beholder. What we need to do is be very 
firm in our demonstrations of how we intend to both decrease 
the reward of a potential attack, or increase the risk of a 
potential attack. I believe that space includes the assets in 
space--it includes the launchers, it includes the ground 
stations--and I believe there are passive methods, and there 
are defensive active methods. There are sometimes offensive 
methods, for example, potentially doing something destructive 
to a jammer.
    I do not believe that anything I have seen would require 
active, full-time on-orbit offensive capability, other than 
potentially some ability for a satellite to defend itself 
against an attack. I personally have worked on a study of 
Gatlin guns on a satellite to shoot something coming at it. I 
believe that might be within the realm of what might be 
required, but I do not believe there is any one set of answers. 
It is, in fact, a broad set of issues that cause deterrence to 
exist.
    Chairman Levin. Mr. Stenbit, the Defense Department has 
been criticized for its failure to completely comply with the 
capital planning business process, reengineering and the other 
requirements of the 1996 Clinger-Cohen act, which was enacted 
to get the Department's chaotic information systems under 
control and to improve the security and the interoperability of 
those systems. If confirmed, would you make it a priority to 
bring the Defense Department into complete compliance with the 
Clinger-Cohen act?
    Mr. Stenbit. Yes, sir, to the best of my ability.
    Chairman Levin. Do you believe you have the authority to 
make that happen?
    Mr. Stenbit. I believe the authority is appropriate, yes.
    Chairman Levin. When you say appropriate, do you also mean 
adequate?
    Mr. Stenbit. Well, it is a coordination and staff 
authority, as opposed to execution authority, and that is the 
way the Department works, but certainly the access to the 
Secretary and the ability to have access to everything and 
review the budget appears to me to be adequate, yes.
    Chairman Levin. Dr. Sega, a number of programs have been 
established to try to speed the transition of technologies and 
other innovations from science and technology programs into the 
hands of warfighters. The Director of Defense Research and 
Engineering is in a unique position to hasten the insertion of 
these technologies into the hands of the warfighters who need 
them. Do you believe that it would be helpful to establish a 
rapid response fund to help expedite that transition and, if 
so, would you support that within the Department to achieve an 
appropriate level of funding for it?
    Dr. Sega. Yes, Mr. Chairman, if confirmed I would support a 
rapid response fund. I believe that it gives a flexibility 
during the current year to take advantage of maturing 
technologies and accelerate their application to the 
warfighter.
    Chairman Levin. Congress and the Defense Science Board and 
others have expressed concern about the condition of defense 
labs and test facilities, the slow implementation of reforms to 
improve management, personnel, technology development programs, 
and the degree to which defense labs support the needs of the 
acquisition and warfighting communities. If confirmed, what 
specific reforms would you pursue to ensure that defense 
laboratories continue to make a positive contribution to our 
defense science and technology programs?
    Dr. Sega. Mr. Chairman, if confirmed, I would look into 
that and review the situation with respect to the condition of 
our laboratories both with respect to infrastructure and 
personnel. I think it is a very important and critical problem 
that needs to be addressed, and I would take that on as one of 
my priorities.
    Chairman Levin. Mr. Dominguez, the Air Force projects that 
it is going to miss the 2001 statutory end strength by over 
4,000 personnel, and the primary reason for this appears to be 
lower than expected reenlistment rates, and you mentioned that 
in your opening remarks. What is your view as to why the 
larger-than-expected numbers of airmen are leaving the Air 
Force during their second and their third terms and, if 
confirmed, what specifically would you do to improve retention 
rates?
    Mr. Dominguez. Senator, I think that is one of the most 
important issues we must face here in the coming years. I want 
to take this opportunity to thank the committee for its 
assistance to all of the services, and improving their ability 
to recruit and retain qualified personnel.
    As to the specific causes for our missing our goals for 
second and third-term reenlistment, I am happy to research that 
for you and get back with you on that, and to work with your 
staff as we understand that problem, but certainly the work 
this committee has already done in terms of giving us special 
pay authority and aviation pay for the pilots and the quality 
of life initiatives that this committee has supported are very, 
very important to making the rigors of military life manageable 
for families, because it is the families who reenlist.
    Chairman Levin. Finally, Mr. Dominguez, do you support the 
current Department of Defense homosexual conduct policy?
    Mr. Dominguez. Sir, I understand again that is a very 
difficult issue. I know that the members of this committee and 
the staff of this committee were very involved in the policy 
that now appears to be in place, and I presently have no 
knowledge of any compelling reason why that policy needs to be 
changed. It appears to me to be, and from what I know that it 
seems to be working adequately, but I would be happy, if 
confirmed, to work with you and your staff on understanding 
more about that issue.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman. I will 
start off with Dr. Sega. You really have a great challenge, and 
having had the opportunity to visit with you and sharing the 
views of our distinguished colleague from Colorado, I think you 
are eminently qualified to take this thing on. I think you 
probably have as much an opportunity as anyone in the 
Department of Defense, including the Secretary, to drive the 
Department and to drive the cutting edge of the next generation 
of weapons.
    It has been my experience through the years, regrettably, 
that we encounter the old syndrome, which you know well, not 
invented here. Sometimes some good ideas emanate from beyond 
the Department of Defense, and they are deserving of equal 
consideration within the Department once they are presented. Do 
you share that view?
    Dr. Sega. Yes, Senator Warner, I do. From my background 
with the University, as the dean of the College of Engineering, 
it was our goal to form partnerships between industry, 
Government, and the university. I think various sectors that 
develop technology, that have innovative ideas, should be 
included in the process to get the very best capability for the 
warfighter.
    Senator Warner. Also you will be dealing with the annual 
battles within the Department to get your share of the budget. 
I am concerned that America is not keeping up in its research 
and development as much as it should, and we should try and 
increase those budgets. I would hope you would commit to this 
committee to put on your body armor and go in there with your 
fellow colleagues and go for it. Am I understanding that is the 
case?
    Dr. Sega. Mr. Chairman, I share your concern, and I would 
be a strong advocate for the S&T program in the Department of 
Defense.
    Senator Warner. You also have the DARPA organization. How 
familiar are you with that organization?
    Dr. Sega. I understand it in an overall sense, sir.
    Senator Warner. Well, therein is kind of an uncut diamond. 
Do not try and polish it up too much. Leave it rugged and 
rough, but give it sufficient support to originate some ideas 
and come up with concepts as they go along. Can you commit to 
do that?
    Dr. Sega. I will.
    Senator Warner. This committee last year increased the 
President's budget by $200 million for unmanned advanced 
capability for combat systems. At that time, we established a 
goal for the Department that within 10 years one-third of the 
U.S. military operational deep strike aircraft would be 
unmanned, and within 15 years one-third of the operational 
ground combat vehicles would be unmanned. How does that notion 
strike you? It happens to be the law of the land, but what are 
your views?
    Dr. Sega. I believe the technology in unmanned and robotics 
systems has been used in a variety of sectors in the past, has 
been used to a certain extent in our Department of Defense, and 
I believe that is a good direction, to continue to push 
technologies toward unmanned vehicles.
    Senator Warner. I find that very reassuring, and I hope 
that you will in due course, as you become more fully 
understanding of this concept, not only adopt it, but even push 
it harder where you think it can be done efficiently to achieve 
those goals.
    Dr. Sega. Sir, if confirmed I will look seriously at all of 
those options.
    Senator Warner. Mr. Dominguez, this committee has a 
longstanding commitment to ensuring that only military 
officers, men and women of the highest character and 
qualifications, rise to the most senior positions. The 
procedures for identifying adverse information about officers 
selected for promotion are in place, and we ensure that these 
matters are fully considered.
    Senator Levin and I spend a good deal of time together with 
our Chairman and Ranking Member of the Personnel Subcommittee 
and other members of the committee getting into these cases 
very thoroughly, objectively, and fairly. As a matter of fact, 
this afternoon I am going to spend some time on these issues. 
If confirmed, what do you anticipate your role will be in 
reviewing the promotion boards for nominations for senior flag 
and general officer positions?
    Mr. Dominguez. Senator, I will take as active a role in 
that as Secretary Roche requires, but I believe that would 
entail at a minimum reviewing oversight of the process to 
ensure compliance with applicable laws and records to ensure 
the process is fair, and thirdly to ensure that the appropriate 
information and relevant information is provided to all of the 
decisionmakers involved in this, and I want to ensure you and 
the members of this committee that Secretary Roche and I 
understand our obligation to this committee in that regard.
    Senator Warner. I want you to underline the word fair, 
because this system is dependant upon fairness and equity when 
it come to promotions. There simply cannot be any compromise 
along those lines. Not only the individuals themselves, but 
their families make an enormous commitment.
    So often the spouse has to move every 2 or 3 years, 
relocate the children and care for the children when the spouse 
is overseas, or deployed away from home, and this all adds up. 
When that promotion board comes, something that is anticipated, 
there is great emotion, and as long as they feel it was fair, 
they accept the results even though the results might not be 
what they had hoped.
    It is definitely a family situation, and it is interesting. 
In my time here on the committee I have come to learn more and 
more about the value of the family in the decisions, 
particularly those relating to a second hitch, those relating 
to a critical decision by an officer to continue on past the 6 
or 7 year mark. Those decisions are made around the family 
table, so bear that in mind.
    You have a wonderful family yourself. You understand those 
values, and I hope that you will follow that with great care.
    Mr. Dominguez. I will, sir.
    Senator Warner. Now, Mr. Stenbit, we hope you will inject 
yourself in this quadrennial review process. That process, no 
matter how it comes out, is going to be the subject of 
tremendous controversy. But that is for the good, because 
unless it engenders that type of constructive controversy, then 
little will have been achieved.
    It takes forceful personalities like our President and the 
Secretary of Defense to deal with those sensitive issues in our 
Department. Nothing is so valued as roles and missions, and I 
repeat that. Nothing is so valued, and there is a good, strong 
competition, as there should be, between the military 
departments. But the ability of that eventual report to become 
a constructive building block for our Nation's defense will 
largely be determined on the extent to which persons with 
responsibility and knowledge are able to feel that they made a 
contribution, that their voices were heard and their ideas were 
considered, even though they may have been rejected.
    Is my philosophy generally what yours is? I am just 
curious.
    Mr. Stenbit. Absolutely. Constructive, adversarial 
relationships, and I mean that in the best of senses, in the 
process are very important to get good ideas out. I have not 
had the privilege of being involved in that so far, but if 
confirmed I look forward to being there, and I do not think 
they hired me to be a weak voice.
    Thank you very much, Mr. Senator.
    Senator Warner. I think that is true.
    Now, my next question, I think I have said it, and other 
members on this committee have said it every time a nominee for 
your position has come up, and I do not say that by way of 
criticism for those that have preceded you, but there are no 
limits to which you can move this particular frontier that will 
not enhance our Nation's defense, so listen carefully.
    Despite the efforts of the Department of Defense to 
establish standards of interoperability in the command and 
control systems essential for joint operations, virtually every 
significant military operation in the last 2 decades has 
experienced communications, intelligence, and operations and 
logistics systems of the various services that failed to 
properly interact.
    I have just a modest, as I explained to you, knowledge of 
electronics and so forth from years past, but I am sitting and 
watching a process by which central switching areas for 
communications, the Army, Navy, and the Air Force, are now up 
for rebid and replacement. I find the Army is marching off in 
one direction and the Navy and Air Force seem to be pretty well 
joined marching off in another direction. Since the switch is 
common to the military branches, I cannot figure it out. One 
wants one contractor, another one wants another contractor.
    I am not here to decide which contractor is best qualified, 
but I keep saying to myself, why should there be a different 
communications switch for the military services? Why can't one 
switch better serve the Nation, and enable some cost savings in 
training those who constantly have to go in and repair and 
operate the switch, and save us on the spare parts inventory. I 
could go on and on. Take a look at that one when you get there.
    Mr. Stenbit. I would be happy to, sir, if I am confirmed. 
There are times when having two different kinds are useful, 
because then the software bug in one will not destroy them all, 
but I am absolutely not familiar at all with the details of the 
one you are talking about.
    Senator Warner. I purposely did not give a lot of detail, 
but I am just trying to use an example. You may be right, and 
maybe two systems are needed.
    Mr. Stenbit. If I am confirmed, that is clearly on the 
plate, no question about it.
    Senator Warner. If the Navy cannot get its switch to talk 
to the Army's switch, where are we?
    Mr. Stenbit. Even my solution does not work then, sir. They 
do not back each other up.
    Chairman Levin. Thank you, Senator Warner. Senator Thurmond 
has another commitment. We are going to call on him out of 
order. We thank Senator Ben Nelson for permitting us to do 
that.
    Senator Thurmond.
    Senator Thurmond. Good morning, gentlemen. I am partial to 
my home town of Aiken, South Carolina, and I always have a 
special place for those from the Aiken area for going out and 
doing well. We have two men before us today who can claim the 
Aiken area as home, Gen. Hansford T. Johnson and Dr. Mario 
Fiori.
    Mr. Johnson grew up in Aiken. I knew his father and had the 
utmost respect for his entire family. He attended my alma mater 
before transferring to the United States Air Force Academy, 
where he graduated in the first class in 1959. Many of us were 
fortunate to work with him during his career in the Air Force, 
and as a member of the Base Realignment and Closure Commission.
    Dr. Mario Fiori is not actually from Aiken, but I claim 
him. I got to know him during his tenure as site manager at the 
Department of Energy Savannah River Site. I even hired his 
daughter to work for me in 1993. After his successful career as 
a naval officer, Dr. Fiori was selected to be the manager of 
the Savannah River Site. The site manager is a demanding post 
that requires the finesse of a politician, the expertise of a 
scientist, and the financial skill of a professional 
accountant. As manager, Dr. Fiori was all of these and much 
more.
    Mr. Chairman, we are fortunate to have these two fine men 
available to the Department of the Navy and the Department of 
the Army. They are fine Americans who have dedicated their 
lives to the service of our Nation, and I am confident that, 
once confirmed, each will serve with distinction.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thurmond. I know how 
appreciative they are of your comments, and how important those 
comments are to this committee. We thank you for them, and we 
will make the rest of your statement part of the record at the 
appropriate place, right before the second panel comes on as 
you have requested.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. First, I would 
like to welcome all of the nominees and their families to this 
gathering today and to say to all of you that it is a daunting 
task to enter public life, but it is one that I am sure you 
have fully considered, having such a strong background in each 
of your cases, so I welcome you and appreciate that very much.
    Mr. Dominguez, one of the things that I think can be very 
helpful in terms of the retention and the staffing for the 
military has already been established in some cases, certainly 
where I have some knowledge of the 55th Wing in Omaha at Offutt 
Air Force Base they have established what is called a future 
total force initiative, where there is a tie-in between the 
Nebraska Air National Guard and the regular Air Force, and it 
has been suggested also that the Reserve can play a role in 
dealing with the staffing needs of the military.
    If we look at the staffing in a layering structure so that 
you are dealing with the Reserve and the Air Guard putting 
together all of the staffing needs, particularly with respect 
to the pilot requirements, because there are so many pilots 
leaving the regular service who will still be associated with 
the Reserves or the Air Guard, I wondered if you have any 
particular plans to work with that system or that initiative in 
the future and not just with respect to the Air Force, but with 
respect to other services as well, whatever you have heard.
    Mr. Dominguez. Thank you, Senator. I think the total force 
concept is an extraordinarily powerful concept, and 
extraordinarily important to all of the services, and the 
United States Air Force takes a second seat to no one in the 
enthusiasm with which they have embraced and integrated the 
Reserve components in the Guard and Reserve into the missions 
and life of the active Air Force. I would expect, Senator, that 
if I am confirmed that will also be a major focus of mine.
    There is enormous value in the Reserve components, and 
there are enormous opportunities in front of us to continue to 
investigate and explore ways that we can more fully integrate 
those Reserve components into our missions and capitalize on 
their unique contributions.
    Senator Ben Nelson. In that regard, of course, General Sega 
is in the Reserves, so who knows, maybe he will be more than a 
weekend warrior with respect to that continuing service. We 
appreciate that very much, General.
    Mr. Dominguez, in that regard, have you seen any studies, 
or are you thinking about any studies, that would tie the cost 
of, let us say, pilot training or other investment that the 
military makes in its personnel as to what the financial 
implications and economic implications are in hanging onto 
well-trained, qualified staff in the total initiative effort?
    Mr. Dominguez. Senator, I am not aware of any particular 
studies, and have at present no plans to initiate any, although 
cost-effectiveness is a very, very important decision criterion 
for us all, as there will always be fewer resources that are 
necessary to get all of the jobs done across the services, and 
the Air Force is no different.
    Senator Ben Nelson. What I am getting at is, even if we did 
not have a shortage of available personnel, it probably would 
still be cost-effective to try to hang on to trained personnel 
in whom we have invested countless thousands of dollars and 
have established relationships with, hanging onto old friends, 
rather than spending our time making new friends.
    Mr. Dominguez. That is absolutely correct, Senator, and 
there is no question that, once you have invested in training 
these people and bringing them into your culture and aligning 
their values and goals with the goals of service to the Nation, 
you do want to hang onto those people, and that is one of the 
things I understand that the administration will be looking at.
    I believe Dr. Chu may have addressed that in his 
confirmation hearing, about looking at all of the personnel 
policies, including the up-or-out route, but basically we have 
to put everything on the table to see how we can retain the 
best possible human component of the Air Force of the 21st 
century.
    Senator Ben Nelson. That is why it is so essential to have 
the re-upping be a family-friendly experience, so that all of 
the conditions for the families--I guess the comment is often 
made that you sign up single individuals but you retain 
families. That is why it needs to be family-friendly with 
respect to living conditions, benefits, and the quality-of-life 
issues. I hope that you will factor those into the staffing and 
retention issues.
    I see my time is up. I appreciate very much your answers. 
Thank you.
    Mr. Dominguez. Thank you, Senator.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I regretfully will 
not be able to stay for the next panel, and so I would like to 
make just a couple of comments, and perhaps in the opening 
statements some references can be made, particularly to General 
Johnson. I have had the opportunity, though, Mr. Chairman, to 
speak with each of these individuals, and I think we will be 
well-served to have them confirmed and on the job as quickly as 
possible.
    Last Sunday we had an election on the Island of Vieques 
which frankly I thought--I was shocked that it came out as well 
as it did. Thirty-eight percent of the people said, after being 
brainwashed by both the Governor and the mayor, that they liked 
our Navy and they wanted the Navy to stay, and it seems to me, 
Mr. Chairman, starting with that, and building between now and 
November 6, I have very little doubt in my mind that we are 
going to be able to save that island, and I say that because we 
had a hearing not too long ago where we talked about the value 
of live-fire training, and three of the people on the next 
panel understand the value of live-fire training.
    On March 12 of this year we lost six people, five of whom 
were American troops. The accident report showed that range, 
and what happened in that tragedy in Kuwait, was because they 
did not have live-fire training. Inert training is not the 
same, and so I would hope that during the opening statement, 
General Johnson, you might address that and express your 
commitment to live-fire training on that particular range, and 
then maybe the others--this is not going to happen in a vacuum.
    If for some reason we are, for the first time in history, 
kicked off of the range that we own by a bunch of law-breakers, 
then that is going to have a domino effect on all other ranges, 
and of course that includes the Air Force and the Army, so you 
might make some reference to that during your opening remarks. 
I would appreciate that.
    Building a little bit, Mr. Dominguez, on questions that 
have already been asked of you, the chairman asked you about 
those in the second and third terms. Let us go back to the 
first term, and I would like to get your idea of the SRB, the 
selective reenlistment bonus, how effective it has been. It is 
my understanding that we for the first time since 1998 are 
getting that first full reenlistment up to 55.6 percent, which 
I would like to see get a lot higher.
    I am one of the last ones up here, I guess, who is still an 
advocate of the draft, but nonetheless I would like to have 
your evaluation of that program and how we can build on it.
    Mr. Dominguez. Thank you, Senator. I will be happy to look 
into that in more detail if confirmed, and get back to you on 
that, but I do know that bonus program as a general rule is 
very successful and very important to retaining or reenlisting 
people in the specified skills where that bonus is targeted.
    I do know the Air Force is meeting its goals this year for 
its first-term reenlistment. That is a success story, and I 
want to thank the members of this committee for the support 
they provided to the Air Force in the past.
    [The information referred to follows:]

    The number of Selective Reenlistment Bonuses (SRBs) skills was 
small in the heavy drawdown years fiscal year 1989 through fiscal year 
1994. As the economy prospered and at the completion of the drawdown, 
we had to compete with the civilian community to retain our highly 
trained and marketable enlisted personnel. As such, the number of SRB 
skills increased from 68 in fiscal year 1997 ($25 million) to 154 in 
fiscal year 2001 ($165 million). SRBs currently apply to 78 percent of 
our enlisted skills. In fiscal year 2002 our projected SRB budget 
jumped to $258 million. It will likely remain at or about this level 
for the next several years.
    For the first time in 3 years, the Air Force met its first term 
airmen retention target, achieving a 55 percent re-enlistment rate 
against a goal of 55 percent. This success continues a positive 1st 
term trend, up from 49 percent in fiscal year 1999. A large part of our 
success is attributable to an active, aggressive targeted Selective 
Reenlistment Bonus program. Further, bonuses have been effective in 
enabling the Air Force to maintain second term and career airmen 
retention rates. Continued funding of SRBs is a critical element of our 
retention strategy.
    In addition to SRBs, the Air Force continually works toward and 
supports initiatives to improve the overall compensation package in 
order to retain our enlisted force. Recent increases in other areas of 
compensation include higher Basic Allowance for Housing (BAH) rates to 
reduce out-of-pocket cost from 18.9 percent in 2000 to 15 percent in 
2001. Out-of-pocket expenses will continue to decrease until they 
ultimately reach 0 percent in 2005. The fiscal year 2000 National 
Defense Authorization Act (NDAA) changed the law to allow military 
basic pay raises to be set at 0.5 percent above the ECI through the 
year 2006. In 2001, pay table reform raised basic pay for E-5 through 
E-7, and in 2002, with support from this committee, we will likely see 
the largest targeted basic pay increases since the early 1980s. 
Additionally, we have sponsored recent initiatives that have increased 
other special and incentive pays for enlisted members such as Foreign 
Language Proficiency Pay and Hardship Duty Pay for Location. Though all 
of these are positive gains in our overall compensation package, SRBs 
continue to fill a significant pay gap for those critical skills 
competing with higher private sector salaries. SRBs help boost our 
retention and ultimately our readiness.

    Senator Inhofe. That is mostly enlisted personnel. Where 
the pilot situation is right now we went down--the Navy is a 
little bit below the Air Force, but it was down below 20 
percent at one time. Do you have that figure now, and the trend 
lines, and what you might be able to do to improve that?
    Mr. Dominguez. Senator, I do not have the percentage, but I 
would be happy to provide that to you. I know that our pilot 
retention has leveled off, or appears to be leveling off, and 
so the trend line for us is no longer declining in the Air 
Force.
    [The information referred to follows:]
                         pilot retention rates
    The Air Force is experiencing a 9 percent (1,179) shortage in 
pilots. The shortage is reflected in the inventory versus requirements 
chart below. The pilot force manning is projected out to fiscal year 
2010 based on current and historical retention trends, the increased 
active duty service commitment of 10 years for pilot training, bonus 
take rates, and a constant production level of 1,100 pilots per year.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                       Category                          FY00     FY01     FY02     FY03     FY04     FY05     FY06     FY07     FY08     FY09     FY10
--------------------------------------------------------------------------------------------------------------------------------------------------------
Requirement..........................................   13,424   13,306   13,338   13,269   13,318   13,319   13,319   13,319   13,319   13,319   13,319
Inventory............................................   12,245   12,116   12,161   12,168   12,366   12,292   12,232   12,214   12,020   12,105   12,589
Percent..............................................      -9%      -9%      -9%      -8%      -7%      -8%      -8%      -8%     -10%      -9%      -5%
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                                                                                                                                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                                                                                                 
      
    One measure taken by the Air Force to help lessen the pilot 
shortage is Aviator Continuation Pay. The take rates for this program 
are shown below. The long-term bonus take rate reflects the percentage 
of initially eligible pilots that accept a 5, to 20 or to 25-year 
agreement.
    The long-term initial eligible acceptance rate for fiscal year 2001 
was 30 percent; down 2 percentage points from fiscal year 2000's 32 
percent, down 12 percentage points from fiscal year 1999's 42 percent, 
and down from the decade high of 81 percent in fiscal year 1994. In the 
month since September 11, there has not been any significant increase 
in the pilot long-term bonus take-rates.

----------------------------------------------------------------------------------------------------------------
                    Category                       FY94    FY95    FY96    FY97    FY98    FY99    FY00    FY01
----------------------------------------------------------------------------------------------------------------
Long Term Bonus Take Rate.......................     81%     78%     59%     35%     27%     42%     32%     30%
----------------------------------------------------------------------------------------------------------------

    The overall pilot continuation rates are reflected below. These are 
referred to as cumulative continuation rates (CCR). The CCR indicates 
the percentage of officers entering their 6th year of service that will 
complete 11 or 14 years of service given existing retention rates. A 45 
percent CCR for Air Force pilots in the 6-14 year group means that for 
every 100 pilots entering the 6th year of commissioned service, 45 
would complete the 14th year.
    Pilot retention, currently estimated at a relatively low 46 
percent, has continued to experience challenges in sustainment and 
ability to counter current inventory shortfalls.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                       Category                          FY91     FY92     FY93     FY94     FY95     FY96     FY97     FY98     FY99     FY00     FY01
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pilot CCR............................................      35%      34%      62%      82%      87%      77%      71%      46%      41%      45%      45%
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Rated retention is a major concern. The push of operations tempo 
and historical pull of airline hiring have played major roles in pilot 
separation decisions and leading indicators, including pilot 
separations, cumulative continuation rates, initial bonus long-term 
take rates, and historical airline hiring to date point to a 
challenging retention environment.

        <bullet> The AF has a retired rated recall program, which is 
        currently expanding in light of the Nation's wartime tasking 
        (currently 96 personnel participating in this program).
        <bullet> Increasing Pilot Production and Service Commitment: In 
        fiscal year 2000, pilot production increased to 1,100/year from 
        <500 in fiscal year 1995; pilot training ADSC increased from 8 
        to 10 years as of 1 Oct 99.
        <bullet> Improving Aviator Compensation: Aviation Career 
        Incentive Pay increased from $650 to $840 per month in fiscal 
        year 1999; Aviation Continuation Pay (ACP) restructured in 
        fiscal year 2000 to increase compensation from $22,000 to 
        $25,000 per year and extend ACP agreements through 25 years of 
        aviation service.
        <bullet> Managing Operations Tempo/Quality of Life: AF 
        transition to new Expeditionary Aerospace Force (EAF) construct 
        allows better integration of Active, Guard, Reserve, and 
        Civilian members--improves stability, predictability for Air 
        Force members. Also, reduced Joint and AF exercises and 
        restructured inspection system. Post-deployment stand-down 
        policy, expanded family outreach programs, video/internet email 
        links with deployed forces, fiscal year 2001 NDAA medical care 
        improvements, and Basic Allowance for Housing increases 
        improves quality of life.

    Senator Inhofe. Then the Reserve component has been a 
problem, and I think primarily, and I have gotten this from 
those individuals as well as from some of the papers they have 
to fill out when they leave, that the op tempo is the main 
villain there, all of these deployments to places where in my 
opinion we should not have been deployed in the first place, 
and apparently also in the opinion of many of the reservists. 
Consequently, some of the critical MOSs are having a serious 
problem. Do you have any ideas on how you can improve that 
situation with the Reserve component?
    Mr. Dominguez. Thank you, Senator, for that question.
    The Air Expeditionary Force concept I think, as has been 
briefed to me, has gone a very long way to addressing the 
concerns of all members of the Air Force with regard to that 
problem. So with that concept, they now have some 
predictability and stability and in the Reserve components it 
is my understanding that again, we are operating without 
presidential call-up, so it really is volunteers who go from 
the units.
    Senator Inhofe. Thank you very much.
    Mr. Stenbit, before my time expires I want to get into a 
subject you and I talked about in my office, and that is 
spectrum. It is a very significant thing. In the event we 
should lose the 1.7, 1.8 Gigahertz: number 1, what alternatives 
do you see right now, and number 2, what disruptions would take 
place, and what is your opinion today as to the significance of 
maintaining DOD's control of those bands?
    Mr. Stenbit. Thank you for the question. I have not been 
deeply involved in those discussions, and have just recently 
gotten involved, but I do know that the real issue is, it is 
not a question of the DOD's moving. It will probably take about 
15 to 17 years for the satellites that are dependent on 
frequencies in that band to fly out and be replaced with those 
that have other frequencies. It is conceivable there are 
alternatives for the DOD in other frequency spectrums, but this 
debate appears to me to be the wrong one.
    The people who want to pay money, quote-unquote, to have us 
move are not accepting the full responsibility to replace the 
absolutely fundamental national security capabilities we have. 
They want us to take all the risks about whether the actual 
other frequency will be there. Whether the costs are correct 
and how fast the satellites fly out and so forth, and so there 
is a real asymmetry in this particular debate from my point of 
view.
    We have hard core requirements that are built into major 
weapons systems and training systems, and those requirements 
have to be met or we are not going to have an effective 
military, and that is a little different from whether the 
venture capital guy gets his money back fast enough when he 
auctions the spectrum.
    There is a different risk involved here, and I am very 
concerned about the haste with which, on the one side, apparent 
financial risk is being measured against real national security 
risk. I am very willing to work on that problem, if confirmed, 
but it is an asymmetrical battle right now.
    Senator Inhofe. Well, that is a very good answer, and I 
wish the people would talk in those terms a little bit more, 
because all we hear, as Members, is the fact that there is a 
very large block of people out there that want it and are going 
to pay for it, but there are other problems. It is more 
complicated than that.
    I guess the request I would make of you, and I know my time 
has expired, would be that if we go out, as we did last year, 
and we have previously, and fight for the Defense Department to 
maintain control of these bands, will you see to it that you do 
everything within your power--that the administration does not 
change its mind after we have done all of that, and change 
their position on whether or not we should keep those bands?
    Mr. Stenbit. I can absolutely promise you that if 
confirmed, or even if not confirmed, I will try.
    Senator Inhofe. Thank you very much.
    Chairman Levin. Thank you, Senator Inhofe.
    We will excuse this panel and move to our second panel. We 
have a couple of our colleagues here that are waiting to 
introduce one or more of our nominees in the second panel that 
we would like to get to immediately. Thank you all.
    During this second panel, we will be considering the 
nominations of Michael Parker to be Assistant Secretary of the 
Army for Civil Works; Dr. Mario Fiori to be Assistant Secretary 
of the Army for Installations and Environment; H.T. Johnson to 
be Assistant Secretary of the Navy for Installations and 
Environment; and Nelson F. Gibbs to be Assistant Secretary of 
the Air Force for Installations and Environment.
    On behalf of the committee, let me welcome each of you and 
your families. In a moment we will ask you to introduce your 
family members. We will go a little bit out of order here 
because of our colleagues' schedules. We have two of our 
colleagues here to introduce Congressman Parker, and we will 
call first upon our good Republican Leader, Senator Lott, and 
then call upon Senator Cochran for that purpose. Then we will 
call upon Senator Cleland.
    [The prepared statements of Senators Bingaman, Thurmond, 
and Smith follow:]
              Prepared Statement by Senator Jeff Bingaman
    Mr. Chairman, thank you for holding this confirmation hearing today 
on these seven nominees. These are all very important positions in the 
Pentagon, and I am pleased that the administration has sent us these 
nominations. I expect the committee will quickly report the nominations 
and they will soon be confirmed by the full Senate.
    I'd like to take this opportunity to talk for a few minutes about 
the position of Assistant Secretary of the Army for Civil Works. This 
position oversees the Army Corps of Engineers, and the 340-member work 
force of the Corps' Albuquerque District.
    For nearly 75 years, the Albuquerque District of the Corps has 
played a major role in many important water resources development and 
management projects in New Mexico. Through a number of projects, the 
Corps has helped improve the quality of life for citizens all over my 
State. The Corps built the Conchas Dam in San Miguel County and later 
built the Jemez, Abiquiu Galisteo, Two Rivers, and Santa Rosa Dams. 
These projects provide flood control, irrigation and recreation for the 
people of New Mexico.
    The Albuquerque District provides design, construction, and 
operations and maintenance services to three important Air Force bases 
in New Mexico--Kirtland, Cannon, and Holloman. The district also works 
with some of our local communities on critical water resource and 
flood-prevention projects authorized by Congress, including cooperative 
projects in Alamogordo, Las Cruces, Bernalillo County, as well as 
others around the state.
    The Corp's role was especially visible in the recent emergency 
response to last years tragic Cerro Grande Fire. The district provided 
temporary housing to 114 families whose homes were destroyed and 
responded quickly to the threat of flooding in Los Alamos after the 
fire.
    I want especially to recognize the Albuquerque District's recent 
efforts to implement Section 593 of the Water Resources Development Act 
of 1999. With the first-year appropriation Congress provided in fiscal 
year 2001, LTC Raymond Midkiff and his staff, especially James White 
and Bill Spurgeon, have moved quickly to identify eligible projects and 
to implement Project Cooperation Agreements. The first PCA was signed 
earlier this month and several more are in the works. I look forward to 
seeing soon a number of projects under construction in Central New 
Mexico.
    I very much appreciate the continuing support the Albuquerque 
District has provided the citizens of New Mexico, and I want to express 
my thanks to the district's dedicated staff for their always prompt 
responses to requests from my office for project information and status 
reports.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman.
    Mr. Chairman, I join you and Senator Warner in welcoming our 
distinguished group of nominees. This is the largest group of 
nominations that the Armed Services Committee has considered at one 
time. It shows this committee's bipartisan effort to provide Secretary 
Rumsfeld the quality people that will be key to transforming the 
Department of Defense into the organization that it must become to cope 
with the post Cold-War era challenges to the United States.
    Mr. Chairman, I believe each nominee will bring to the position for 
which they have been nominated unique and professional experience. They 
are highly qualified and most importantly dedicated to serving our 
Nation and the men and women of our Armed Services. Although I will 
have make additional comments regarding Dr. Fiori and General Johnson, 
I am pleased to have had a role in recommending both individuals to the 
President. Each has served in most challenging positions. Dr. Fiori as 
the Site Manager for the Savannah River Site. General Johnson, a native 
of South Carolina, as the Commander of the Air Mobility Command.
    To each of our nominees I want to state that you my support and 
that of this committee. I wish you success, and hope that you will 
consider the committee a partner in your efforts to improve the 
readiness of our Armed Forces.
    Thank you, Mr. Chairman.
                                 ______
                                 
                Prepared Statement by Senator Bob Smith
    Good morning. Welcome to Mike Parker, who has been nominated by 
President Bush to assume the position of Assistant Secretary of the 
Army for Civil Works. Although in the past, the nomination for this 
position was referred solely to the Senate Armed Services Committee, 
this year I am hopeful that the nomination will be sequentially 
referred to the Senate Environment and Public Works Committee, on which 
I am the Ranking Republican Member.
    Virtually all of the responsibilities of the Assistant Secretary 
relate to matters that are within the legislative jurisdiction of the 
Environment and Public Works Committee. The Environment Committee has 
jurisdiction over the issues of flood control, improvement of rivers 
and harbors (including environmental aspects of deepwater ports), 
public works, bridges and dams, and water resources. Members surely are 
familiar with the fact that every 2 years, the Environment Committee 
considers a Water Resources Development Act, which authorizes projects 
nationwide under the Army Corps Civil Works Program.
    The Assistant Secretary of the Army for Civil Works is responsible 
for all aspects of the Army Civil Works Programs, including:

        <bullet> policy formulation and program direction for water 
        resources development, including: navigation, flood control, 
        hydropower, water supply, shore protection and beach erosion 
        control, recreation, fish and wildlife conservation and 
        enhancement, and emergency response to natural disasters;
        <bullet> regulatory activities conducted under the River and 
        Harbor Act of 1899, the Clean Water Act, and various other 
        acts;
        <bullet> legislation, including the biennial Water Resources 
        Development Act; and
        <bullet> annual budget review, approval and submission.

    The Assistant Secretary of the Army for Civil Works is the steward 
of these areas, which fall directly in the jurisdiction of the 
Environment Committee. Thus, it is only fitting that the two committees 
share consideration of the nominee for this key position.
    I look forward to learning more about Mr. Parker and his background 
and qualifications.
    Thank you, Mr. Chairman.

  STATEMENT OF HON. TRENT LOTT, U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman, Senator Warner. It 
is a pleasure to be back before this distinguished committee. I 
had the pleasure of serving on this committee for 6\1/2\ years, 
and enjoyed it, and miss it until this very day. I appreciate 
the job that you do and the opportunity to appear before you 
today on behalf of my good friend and our former colleague from 
Mississippi, Congressman Mike Parker, who has been nominated to 
be Assistant Secretary of the Army for Civil Works. I am very 
pleased with this nomination, and very proud to appear on his 
behalf, Mr. Chairman.
    Did you say the nominees will introduce their families?
    Chairman Levin. We will give them that opportunity.
    Senator Lott. I will just have to note Congressman Parker's 
wife and daughter and one son are here, and he has one son that 
has met with great success in life. He is a golfer, and he is 
trying to work with the former Congressman to improve his 
capabilities to make some money later on in life, perhaps as a 
golfer. [Laughter.]
    Chairman Levin. How hopeless is it? [Laughter.]
    Senator Lott. There is some real concern that it is 
hopeless. [Laughter.]
    I promised my friend here that this would not be a roast, 
Mr. Chairman, but I am tempted for it to be so, in life, some 
of your best friends are the ones you pick on the most, and 
Congressman Parker and I have had a lot of fun together 
representing the State of Mississippi in years gone by, and we 
even used to do an occasional TV show together, and at one 
point--before he tells this story on me I am going to tell it 
on him. He grew a mustache, and it seemed to have an adverse 
effect on the rest of his hair. I noted that on a live 
television program, to which, without a crack and a smile, he 
said--well, he explained why he was doing that, and he did say 
that at least he did not have the temerity to wear a toupee 
like I did. [Laughter.]
    It went downhill from there and degenerated into a poorly 
rated show, and it was eventually canceled. [Laughter.]
    But that is the kind of relationship we have had. I just 
want to say that I am really pleased to be here on his behalf. 
He certainly has the background to do this job. He has good 
education credentials. He did serve in Congress, representing 
the Fourth Congressional District. He served on all the 
important committees in the House, including the Budget 
Committee, the Appropriations Committee, Transportation, 
Education, and Workforce and Veterans Affairs, and he was a 
very active legislator.
    He would get engaged to try to find a way to build 
consensus. I must confess that in order to build that consensus 
he went to great extremes, including sitting on both sides of 
the aisle, first as a Democrat and then as a Republican, and so 
he clearly has been and can be bipartisan, and I mean that in 
the finest sense of the word.
    But he showed that he was an active legislator. He was 
engaged in issues when he was in Congress and in his private 
life that give him the background that he needs to do this job, 
and he has been in business. He has been a successful 
businessman. He owned a funeral home, a life insurance company 
and a funeral insurance company. He has also been involved with 
GFT Farms, Incorporated, and Wilkes Resources Incorporated.
    He has been involved with wildlife, nature and land 
management, and when he was in Congress, of course, serving on 
Appropriations, including the Energy and Water Appropriations 
Subcommittee, he was involved with civil works with the Army 
Corps of Engineer projects, and I think he is just a superior 
choice for this position.
    His wife, Rosemary, and their kids are just as fine as you 
would ever hope for, and so I hope that he will receive 
expeditious consideration, and I want you to know with full 
confidence that he will handle this job very carefully. He will 
make sure that he understands the concerns of Congress, the 
House and the Senate, on both sides of the aisle. He will make 
sure the job is done ethically, efficiently, and effectively, 
and I am delighted to be here on his behalf. Mr. Chairman and 
Senator Warner, I commend him to you and to the Environment and 
Public Works Committee that I believe will also be involved in 
this confirmation.
    Thank you for this opportunity.
    Chairman Levin. Thank you, Senator Lott, for that wonderful 
introduction. I know how much Congressman Parker welcomes it, 
and we do, too. It is important to us.
    Senator Cochran.

 STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM MISSISSIPPI

    Senator Cochran. Thank you, Mr. Chairman. I am very happy 
to be here to endorse this nomination and to urge the committee 
to report favorably on the nomination to the full Senate. I 
have known Mike Parker since he began a campaign for Congress 
in the district that I used to represent in Mississippi when I 
was in the House of Representatives, the Fourth Congressional 
District of our State that is in the southwest corner of 
Mississippi.
    It included parts of the largest county in our State, Hinds 
County, where the capital city of Jackson is located, and the 
old river counties on the Mississippi River, very historic farm 
country. Cattle and dairy farm businesses, as well as colleges 
and universities are located in this district. It is really a 
microcosm, I think, of the entire State, and Mike represented 
it. He was elected in 1988, and he represented that area of our 
State with distinction.
    He was always conscious of his responsibilities. He took 
them seriously. He used his personal experiences as a 
businessman and as a farmer to bring to the legislative process 
an insight and understanding that was very valuable to the 
legislative process. He was always very thoughtful in the way 
he approached his job.
    I think you can consider him, too, as a conservationist. He 
has been involved personally with land management. He 
understands timber management. He understands the importance of 
preserving soil and water resources, and he has demonstrated 
that in his personal businesses as well as his public life as 
well. I am hopeful that this committee will appreciate, as I do 
and Senator Lott does, the value that he can bring to this job 
as Assistant Secretary of the Army, because of his experience 
and his talent and his intelligence and his good judgment.
    Chairman Levin. Senator Cochran, thank you very much for 
your words, very significant, very relevant to this nomination, 
to our consideration. We are very appreciative of them.
    Senator Lott. Mr. Chairman, could I also just recognize, 
and I know he probably would, too, but we do have another one 
of our colleagues here, Congressman Chip Pickering from an 
adjoining district that served in the House with Congressman 
Parker, and he wanted to be here to show his support. Here he 
is, right here.
    Senator Warner. Why don't we invite him up. He ought to be 
recognized and be a part of the record.
    Chairman Levin. We will take that wave as an indication of 
strong support.
    Senator Warner. We thank our colleagues for coming. Those 
are two powerful statements. There is little left for the 
committee to judge here.
    Chairman Levin. Thank you both.
    Senator Cleland.

                STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. I would 
just like to thank you for this hearing. I am sorry I will not 
be able to stay for the duration, but I look forward to working 
with all of the nominees. I just want to take this opportunity 
to introduce Dr. Mario Fiori, who has been nominated by the 
administration to be Assistant Secretary of the Army for 
Installations and Environment.
    Before I begin, I just want to recognize that Michael 
Parker, nominated to be Assistant Secretary of the Army for 
Civil Works, enjoys the support of the Georgia Ports Authority. 
I look forward to working with him and hope that his early show 
is not canceled. We hope this is just the beginning of his 
show, and we look forward to working with him. It is my hope to 
talk with him in the near future about Georgia's ports and 
Savannah and Brunswick.
    Mr. Chairman, my real purpose is to be here to introduce to 
the committee today Dr. Mario Fiori. Dr. Fiori is one of my 
constituents who currently resides in Hinesville, Georgia, but 
he was born in Frankfurt, Germany, and raised in Brooklyn, two 
foreign countries. [Laughter.]
    Also a 1963 graduate of the U.S. Naval Academy, after a 
year on a diesel submarine, he began his graduate degree at the 
Massachusetts Institute of Technology. While there, he 
completed his master's degree in mechanical engineering, a 
nuclear degree, and earned a Ph.D. in nuclear engineering.
    Upon finishing his education, he continued his Navy career 
in various positions. He served as department head aboard the 
U.S.S. Pargo, and later as executive officer on the missile 
submarine U.S.S. George Washington Carver.
    In 1979, he became commanding officer of the nuclear attack 
submarine U.S.S. Spadefish. From 1983 to 1985, he served as 
Special Assistant to President Reagan's science advisor, Dr. 
George Keyworth.
    In 1985, he served as commander of Submarine Squadron 4 
based in Charleston, South Carolina. He later became Commander 
of the Naval Underwater Systems Center in Newport, Rhode 
Island, where he served until his retirement in 1989. Following 
up on this extremely distinguished naval career, Dr. Fiori was 
then appointed by the Secretary of Energy to serve as a 
representative to the Defense Nuclear Facility's Safety Board. 
He was later assigned by the Secretary of Energy to become 
manager of the Savannah River operations, where he continued 
Government service.
    In 1997, he left the Department of Energy to become founder 
and president of Accomplice Associates in Georgia.
    Dr. Fiori is married and has three daughters. His daughter 
Cristina is here today, accompanying her father.
    Mr. Chairman, I look forward to a continuation of this 
hearing and the early confirmation of Dr. Fiori's nomination. 
He is an incredibly qualified individual.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Cleland, thank you.
    Dr. Fiori, you cannot do better than getting an 
introduction from Senator Cleland. That is as good as it gets.
    Senator Warner. Or have a wonderful daughter who worked on 
this committee and traveled a long distance to join us today. 
Thank you.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I am privileged to 
say a few words about my constituent, General Johnson. He has 
41 years of service to our Nation in the United States military 
and other Government service. That is extraordinary. A combat 
veteran, he has 423 missions as a forward air controller in 
Vietnam. I observed that type of action in a previous conflict, 
and I know the risks involved in that type of flying. It is not 
exactly high altitude flying.
    He became one of the U.S. Air Force's most accomplished 
senior leaders, serving as Deputy Commander in Chief of the 
U.S. Central Command, Director of the Joint Staff under Admiral 
William Crowe--a remarkable responsibility, under a very able 
individual. As Commander in Chief, United States Transportation 
Command and Military Airlift Commands he served as Transcom 
Commander during a critical period in our history, Operation 
Desert Shield and Desert Storm. He led one of the most rapid, 
concentrated, and highly successful movements of troops, 
equipment, and supplies in American military history. Logistics 
played a major role in the successes we had in those 
operations.
    Subsequent to his retirement from the Air Force, he served 
as a member of the 1993 Base Realignment and Closure 
Commission. Therefore we welcome you today. BRAC is a subject 
you can slightly distance yourself from for a while, until you 
get across the river. We join you and your family in thanking 
you for continuing your willingness to return to public 
service.
    I was trying to search my mind. I believe you are perhaps 
the first four-star that has returned to a military department, 
which is a bit of history in itself. I was talking to some of 
my Army colleagues here. I remember so well when General 
Goodpaster stepped down, with a very distinguished career like 
yours, to go back to West Point, where he laid aside his four 
stars, and my recollection is he took on two. I am going to 
have that checked out.
    We talked about that yesterday, and I think it is a 
reflection on your humility and love of this country that you 
are willing to now undertake another tour of duty in the 
Department of Defense. I am confident you will do well, and I 
wish you and your family well.
    Mr. Johnson. Thank you very much.
    Senator Warner. Mr. Chairman, I think we can now proceed to 
the panel with questions.
    Chairman Levin. Thank you, Senator Warner.
    Mr. Parker has already been introduced, and is well-known 
to members of this committee for the 10 years of service which 
has been referred to in the House of Representatives. Dr. Fiori 
has also been introduced, as we have been informed served in 
the Navy for nearly 30 years, most recently served as manager 
for the Department of Energy's Savannah River Site. Mr. 
Johnson, as we have just been informed, is an Air Force 
veteran, served with great distinction, served on the Base 
Closure Commission in 1993, and Senator Warner was right that 
you have distanced yourself for a few years from base closures, 
but it will not last long.
    Mr. Gibbs previously served as corporate comptroller for 
Northrop Grumman, and most recently as Executive Director of 
Cost Accounting Standards at the Office of Management and 
Budget, OMB. We welcome all four of you here today. You have 
all responded to the committee's prehearing policy questions to 
our standard questionnaire. These responses will be made a part 
of the record.
    We are reviewing the paperwork required for each of you, 
and we will make certain that it is in accordance with the 
committee's requirements. We will now ask you the standard 
questions which are asked of every nominee who comes before 
this committee.
    You have agreed already to appear as a witness before 
congressional committees when called. You have already agreed 
to ensure that briefings, testimony and other communications 
are provided to Congress, and we will now ask you the following 
questions.
    First, have you adhered to applicable laws and regulations 
governing conflict of interest?
    Mr. Parker. Yes, sir.
    Dr. Fiori. Yes, sir.
    Mr. Johnson. Yes, sir.
    Mr. Gibbs. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Parker. No, sir.
    Dr. Fiori. No, sir.
    Mr. Johnson. No, sir.
    Mr. Gibbs. No, sir.
    Chairman Levin. Will you ensure the Department complies 
with deadlines established for requested communications, 
including prepared testimony and questions for the record in 
hearings?
    Mr. Parker. Yes, sir.
    Dr. Fiori. Yes, sir.
    Mr. Johnson. Yes, sir.
    Mr. Gibbs. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Parker. Yes, sir.
    Dr. Fiori. Yes, sir.
    Mr. Johnson. Yes, sir.
    Mr. Gibbs. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Mr. Parker. Yes, sir.
    Dr. Fiori. Yes, sir.
    Mr. Johnson. Yes, sir.
    Mr. Gibbs. Yes, sir.
    Chairman Levin. All right. Let me now call upon each of you 
for any opening remarks you would like to make, and why don't 
you use this occasion also to introduce any family members that 
are with you?

   STATEMENT OF PAUL MICHAEL PARKER, NOMINEE TO BE ASSISTANT 
             SECRETARY OF THE ARMY FOR CIVIL WORKS

    Mr. Parker. Thank you, Mr. Chairman, distinguished members 
of the committee. It is a privilege to introduce my family. My 
wife of 31 years is Rosemary, sitting over here, and next to 
her is a young man that is 2 years older than my son, and is 
our next-door neighbor back home in Mississippi, Eli Ferguson, 
and my son Thomas, who is 16 and is getting smarter every day, 
and my daughter, Marisa, who is a junior in college, at 
Millsaps College in Jackson, Mississippi.
    I also want to thank Senator Lott and Senator Cochran, and 
also Congressman Pickering for coming by. For full disclosure, 
Chip is my cousin, and so you have to watch what he says about 
me.
    It is a great honor and privilege to appear before this 
committee as the nominee to be the Assistant Secretary of the 
Army for Civil Works. I am very grateful to the President, the 
Secretary of Defense and the Secretary of the Army for the 
trust and confidence that they have placed in me. If confirmed, 
I pledge that I will work as hard as I possibly can to serve 
the soldiers, civilians, and families that make the United 
States Army the most powerful and professional army in the 
world.
    The Corps of Engineers has a proud history stretching back 
almost to the beginning of the country. Over the years, the 
Corps has evolved to emphasize its major responsibilities of 
today, conservation and development of the Nation's water 
resources, which includes flood control, navigation, shore 
protection, and related purposes. All of these tasks are 
important, all are complex and demanding, and all require 
significant resources.
    With competing demands for the limited dollars, fulfilling 
these requirements becomes more and more difficult. However, 
the dedicated and able staff of military and civilian employees 
who make up the Corps of Engineers has risen to the challenge, 
and continues to carry out its responsibilities to the people 
of this country in these important areas.
    In the 10 years during which I had the honor of 
representing the Fourth District of Mississippi in the United 
States House of Representatives, I applied my commitment to 
finding practical, realistic solutions to problems and issues 
of importance to my constituents. Having served on various 
House committees that deal with the range of issues I can 
expect to face as the Assistant Secretary, I know both the 
civil works and the military program aspects of the Corps of 
Engineers.
    Should I be confirmed, I look forward to serving with the 
Army during this landmark era of change and transformation. I 
look forward to serving with the Army team of active, Reserve, 
and National Guard soldiers who distinguish themselves every 
day by their dedication and hard work. I am prepared to 
undertake the important responsibilities of this post, and am 
enthusiastic about the opportunities it presents to me to 
continue to serve this great country.
    Mr. Chairman, if confirmed, I look forward to a strong 
working relationship with you and this committee. I would be 
pleased to answer any questions at this time. Thank you.
    Chairman Levin. Thank you, Mr. Parker.
    Dr. Fiori.

   STATEMENT OF DR. MARIO P. FIORI, NOMINEE TO BE ASSISTANT 
    SECRETARY OF THE ARMY FOR INSTALLATIONS AND ENVIRONMENT

    Dr. Fiori. Chairman Levin, it is an honor and a privilege 
to appear before this committee. I am very grateful to 
President Bush for the confidence and trust he has shown in me 
by nominating me for the position of Assistant Secretary of the 
Army for Installations and Environment.
    I also appreciate the efforts of Secretary Rumsfeld and 
Secretary of the Army Tom White to bring me in as one of their 
team. I certainly very much appreciate and sincerely thank 
Senator Thurmond and Senator Cleland for their very kind words 
and introductions.
    I am particularly pleased to have the opportunity to serve 
in the Pentagon once again. My two previous tours were 
shortened by events beyond my control. Back in 1973, after only 
6 months in the Pentagon, my then boss, Rear Admiral Harry 
Train, sent me to a civilian agency, the Federal Energy Office, 
to assist in efforts to control fuel shortages resulting from 
the Arab oil embargo. Then in 1983, after 4 days in the 
Pentagon, the Chief of Naval Operations, Admiral Watkins, 
detailed me to work in the White House as Military Assistant to 
the President's Science Advisor, Dr. Keyworth. I hope, if 
confirmed, that this tour will last the full term.
    During my naval assignments, and also while in the 
Department of Energy, my highest priority was to take care of 
people, nurture their exceptional talents, improve their 
quality of life, and make their service both exciting and 
rewarding.
    Now, I consider myself truly fortunate to be in a position 
to make a similar contribution to the support of the Army 
family. If confirmed, I will dedicate myself to improve the 
living and working conditions of our soldiers, civilians, and 
families. Also, I will work very hard to enhance our reputation 
as an agency that will attack our environmental legacy problems 
efficiently and effectively, and at the same time ensure that 
mistakes of the past are not repeated in the future.
    If confirmed, I will work closely with the members of this 
committee and our sister Services, other Government agencies, 
and interested non-Government organizations to ensure that the 
Army's installation and environmental programs meet the needs 
and goals of the Army of the 21st century.
    Mr. Chairman, I would be remiss if I did not acknowledge 
the strong support of my family, who have made innumerable 
adjustments to their lives in order to support my military and 
Government career. I regret that Susan, my wife and advisor of 
33 years, could not be here today, but I am delighted that 
Cristina, our oldest daughter, is here with me. Cristina, of 
course, is also very pleased to visit all of her contemporaries 
and friends on the Senate Armed Service Committee staff on 
which she served for 2 years between 1996 and 1998.
    If confirmed, Mr. Chairman, I will serve the Army with 
energy, enthusiasm, and loyally (perhaps with a slight lapse 
during the Army-Navy game.) I am eager to get started, and 
thank this committee and staff for their significant efforts in 
scheduling this hearing so quickly. I thank you for your time 
and attention, and look forward to your questions.
    Chairman Levin. Thank you. We welcome you and your 
daughter. Cris, welcome back. We are delighted to see you 
again.
    Mr. Johnson.

STATEMENT OF H.T. JOHNSON, NOMINEE TO BE ASSISTANT SECRETARY OF 
           THE NAVY FOR INSTALLATIONS AND ENVIRONMENT

    Mr. Johnson. I would like to introduce a woman who has been 
my best friend and partner throughout my entire life, Linda 
Johnson.
    Mr. Chairman, Senator Warner, distinguished members of the 
committee, it is a distinct honor and privilege to appear 
before you again, this time as the nominee to be the Assistant 
Secretary of the Navy for Installations and Environment. I 
thank President Bush for the nomination, Secretary Rumsfeld and 
Secretary England for their strong support to again serve our 
Nation, this time with the Department of the Navy.
    While serving in the military I had the opportunity to work 
with the members and the staff of this committee, and have seen 
first-hand your unwavering support to making sure our Nation 
has the strongest military in the world. I am very proud, as a 
citizen, for the outstanding work that all of you do. Should I 
be confirmed, I look forward to working with Secretary England, 
the members and staff of this committee, and other Members of 
Congress, to provide the Department of the Navy, the sailors, 
marines, and civilians, with the tools necessary to ensure the 
continued maritime dominance of our naval forces.
    As Senator Inhofe mentioned, one of the important parts of 
that is live fire training, and I commit to you to work that 
issue very hard if confirmed.
    In closing, Mr. Chairman, if I may be permitted, I would 
like to thank the mentors and associates in the public and 
private sector who have given their strong support and 
encouragement over the years. Should I be confirmed, I will 
focus my entire talents and energies on serving the Department 
of the Navy and our great Nation. I thank you for hearing us 
today, and this concludes my remarks.
    Chairman Levin. Thank you. We welcome you and welcome your 
wife, both.
    Mr. Gibbs.

STATEMENT OF NELSON F. GIBBS, NOMINEE TO BE ASSISTANT SECRETARY 
       OF THE AIR FORCE FOR INSTALLATIONS AND ENVIRONMENT

    Mr. Gibbs. Thank you. Before I start my remarks, I would 
like to introduce Priscilla Gibbs, my wife of more years than 
she allows me to recount publicly any longer. I want to thank 
you, Mr. Chairman and Senator Warner, for the opportunity to 
appear here today. It is, indeed, an honor to appear before 
this committee seeking confirmation of my nomination to be the 
Assistant Secretary of the Air Force for Installations and 
Environment and Logistics.
    I want to thank President Bush, Secretary Rumsfeld, and 
Secretary Roche for the trust that they have shown in me as the 
nominee for this position, and I want to thank you, Mr. 
Chairman, and the other members of this committee who have 
taken time out of your busy schedules to hold this hearing 
today, and to those, the many that have helped me throughout my 
entire career, and for the continuing support of my family. I 
would like to take this opportunity to give a public thank you 
to all of them.
    Mr. Chairman, if confirmed, I will work closely with you 
and this committee to ensure that the resources allocated by 
Congress to programs under my jurisdiction are used wisely and 
with fiscal integrity. Our Air Force men and women who put 
themselves in harm's way deserve no less than my full 
attention.
    My goals are three: installations that are model places to 
work and to live, a responsive logistics system, and a program 
of fiscally sound environmental stewardship. I promise my best 
effort to carry out the mandates of the office for which I have 
been nominated. I know the issues I will face directly impact 
readiness and quality of life and, if confirmed, I accept that 
challenge.
    Again, Mr. Chairman, it is indeed an honor to appear before 
this committee, and I will be pleased to accept any questions 
from the committee. Thank you.
    Chairman Levin. Thank you very much, Mr. Gibbs. We would 
all echo your sentiments about the role of your families in 
getting to where you have been able to come, and the role that 
they are going to play in your lives from here on out. The 
demands are great in these jobs, and their commitment to your 
service is just as essential as your own commitment to that 
service, and we commend and thank them for that commitment.
    Mr. Parker, let me start with you, relative to the Army 
Corps of Engineers and the question of whether or not there 
should be peer review. Currently, the Corps does not have a 
system in place to assure that independent peer review by 
experts from outside of the agency takes place for studies 
which support major projects before such projects are approved. 
You have indicated that you believe such independent peer 
review would have value. Would you institute such independent 
peer review if you are confirmed?
    Mr. Parker. Mr. Chairman, it would have great value, but 
certain questions have to be answered. Number 1 would be the 
cost, and what types of projects, what the level of funding 
would be before a peer review would be required. You also would 
have to have in place some type of structure where the peer 
review would not delay the projects. So the answer to your 
question is yes, I would support a peer review of some type.
    I believe that it could be done on certain types of 
projects, but it would take a tremendous amount of work on the 
part of all the interested parties to come up with the concept 
of how it would be instituted. If confirmed, I will be working 
with not only the Corps, but also with the House and the Senate 
and all the interested parties involved to come up with some 
concepts to see what we can do to make that work.
    The reason it is so important is because the Corps has had 
a lot of bad publicity in the last couple of years. It is 
necessary that not only Members of Congress but the American 
people know that when the Corps says something they can depend 
upon it, and that they can rely on the facts that are given by 
the Corps and know they are valid. A peer review would serve 
that purpose, and I think it is something that needs to be 
explored. If confirmed, I would look forward to working with 
you and other Members of the House and Senate to make that a 
reality.
    Chairman Levin. Would you let us know after you are 
confirmed, after a reasonable period of time in the office, the 
status of your consideration and deliberation on that issue so 
we can keep track of how you are doing?
    Mr. Parker. Yes, I will, and let me point out that I do not 
know all the information as far as where the Corps is now 
looking at that. But if confirmed I will let you know. Also, I 
want to make sure the committee understands that a decision 
will not be made until consultation is made with the House and 
Senate to make sure we all understand where we are going with 
this, because it would be a major change as far as policy.
    Chairman Levin. Thank you. The General Accounting Office 
has found some problems with the Army Corps of Engineers 
program for mitigation of wetlands loss. Last month, the 
National Academy of Sciences released a report in which it 
concluded the program was falling short of its stated goal, 
which was no net wetlands loss, and I know you have not had a 
chance to review those reports yet, but do you generally 
support the goal of no net wetlands loss?
    Mr. Parker. I totally support that.
    Chairman Levin. Let me ask our other three nominees this 
question. Each of you, relative to base realignment and 
closure, or the BRAC process, the President's February budget 
blueprint says that with 23 percent in estimated excess 
infrastructure it is clear that new rounds of base closures 
will be necessary to shape the military more efficiently. I 
would ask each of you, do you believe that the Defense 
Department has excess infrastructure and that we need more base 
closings to address the problem? Why don't I start with you, 
Dr. Fiori.
    Dr. Fiori. Sir, I definitely believe we have excess 
infrastructure, and to run an organization or business we 
should eliminate as many of the mortgages as we can. As for the 
process of eliminating these extra properties or facilities, I 
come to the table with no preconceived notions about it. I know 
that there are difficult decisions, and it must be done in an 
open and fair process, and with that I would dedicate our 
abilities to accomplish the closures in a satisfactory manner 
that would satisfy the committee and also help us reach our 
goals for the 21st century.
    Chairman Levin. Mr. Johnson.
    Mr. Johnson. Sir, from all indications, we do have excess 
infrastructure, and we need to do something about that. I know 
from personal experience from the 1993 BRAC that the system is 
fair and equitable and certainly can be refined, but it is a 
very good system for handling the excess. If confirmed, I will 
work the issues very hard with no previous suggestions on how 
to do it, but will have an open mind.
    Chairman Levin. Mr. Gibbs.
    Mr. Gibbs. Yes, I also concur with my two colleagues that 
there appears to be excess facilitization in the military 
services, and if confirmed it will be very high on my agenda to 
ensure that whatever process is chosen by the President and 
Congress to pursue the rationalization is carried out in a fair 
and equitable manner.
    Chairman Levin. Thank you. Mr. Gibbs, do you believe as a 
general proposition that the Air Force should clean up property 
due to base realignment, property which has been closed due to 
that realignment? Do you believe that it should clean up that 
property to a level which is consistent with the local reuse 
plan developed by a community, assuming that it is feasible and 
cost-effective to do that?
    Mr. Gibbs. Yes, sir. I believe that the Air Force needs to 
comply with the environmental laws and regulations of the land.
    Chairman Levin. But where the local community has a local 
reuse plan, do you believe that the property should be cleaned 
up pursuant to that plan, provided it is cost-effective, and 
provided it is feasible to do that?
    Mr. Gibbs. Yes, sir, I certainly do, sir.
    Chairman Levin. My time is up. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Parker, I think we are as a Nation indeed fortunate 
that you are willing to step up and take on this very difficult 
task. I think most Members of Congress have at one time or 
another a need to receive consultation from the person in your 
position with regard to their projects back home. You bring to 
this office a knowledge of Congress which will help you and 
those of us here in Congress to achieve a fair and unbiased 
analysis of the programs.
    You are going to have to make tough decisions. As I have 
come to know you, and as your two former colleagues have 
stated, you can handle it, and so I wish you well. I am also 
the senior Republican on the Environment Committee, and I will 
communicate today with the chairman of that committee so that 
hopefully we can expedite your hearing and move you through the 
Senate as expeditiously as we can.
    Now a question about this Nation-wide permits issue. The 
Corps has established 41 Nation-wide permits, in addition to 
the regional and local permits for specific activities. There 
are indications that additional Nation-wide permits may be 
appropriate and necessary. The Corps, however, has been under 
considerable pressure to restrict access to Nation-wide 
permits. If confirmed, how would you begin to address the 
Corps' ongoing efforts to define the use of Nation-wide 
permits. I am a great supporter of the concept of preserving 
the current wetlands, and no loss, and I think it is a good 
one. I think this issue impacts on it.
    Mr. Parker. I think it does also, and I personally support 
the continuation of Nation-wide permitting, and also regional, 
the purpose of which is to speed up the process and also cut 
down paperwork when those things are identified, and it is an 
ongoing process. It is not something that is just done, and you 
sit back and say, well, we have done the process and it is 
over.
    I think the Corps has an ongoing process to look at ways 
that the system can be utilized properly and be able to protect 
the environment and at the same time not put undue regulatory 
burdens on the public. It is a matter that will be of constant 
discussion because the permitting process is dynamic, it is not 
a passive thing, and so there will always have to be discussion 
from here on out.
    We are not talking about just this administration, but from 
here on out, whoever is head of the Corps is going to have to 
be discussing Nation-wide permitting and regional permitting as 
things change, and as technology changes, in order to keep the 
process moving forward.
    Senator Warner. I like your phrase, it is dynamic. That is 
a good approach to this issue. It is highly sensitive.
    The Assistant Secretary of the Army for Civil Works is 
historically responsible for oversight of our national 
cemeteries. Included is the guidelines for the burial, and 
again are subjects that involve tremendous sensitivity 
occasionally with our constituents.
    Arlington, where I have more than a passing interest--my 
father is buried there--is reaching capacity, and soon there 
will be before you, I hope, an option by which we could 
increase the acreage at Arlington. I want to make certain that 
the local community is going to join us in this endeavor to do 
so, but I think some expansion of the cemetery to accommodate 
World War II, Korea and Vietnam veterans is in the national 
interest, so let us work together on that. I just want you to 
know you have a partner, certainly when it comes to Arlington, 
and indeed it is a magnificent asset for our Nation.
    Now, gentlemen, I want to go into the area that involves 
facilities. Through the years on this committee we have seen a 
growing risk to our force structure overseas. I think this 
Secretary of Defense, as have his predecessors, put the correct 
emphasis on protecting our forward-deployed forces.
    But I have commended the President many times and will 
continue to do so for his speech at the Citadel, where he drew 
the attention of America to the phrase, homeland defense, and 
that is a reality. It is a sad one, but we have a problem here 
at home now with regard to our military installations, indeed, 
Government-wide, but I have always felt that the military is 
particularly vulnerable.
    I am going to ask you to represent to this committee that 
you will commit to work amongst yourselves. It should be a 
uniform challenge in the Department of Defense to make sure 
that our bases and installations and the families and others 
who work thereon, whether they are uniformed or civilian, are 
accorded that level of force protection that is required to 
repel, discourage, and deter any attack on these installations. 
We will start with you, Mr. Gibbs, if you have some views on 
that.
    Mr. Gibbs. Certainly, Senator. The protection of our 
resources is paramount, both from an installations point of 
view and from a personnel point of view, and if confirmed I 
will assure you that I will make that a high priority that it 
is carried out effectively.
    Mr. Johnson. I agree, sir, the protection of our facilities 
and our installations is very important. Perhaps the most 
important is the people, and that also involves the local 
communities, so I commit to you to work the entire spectrum of 
homeland defense.
    Senator Warner. Dr. Fiori.
    Dr. Fiori. I certainly commit myself to working this issue, 
sir. We have to work not only to protect our military assets 
and our facilities and our people and their welfare and health, 
with our communities, who are so much integrated with our 
military facilities in many, many fashions. We have to work 
with them to ensure the maximum safety that we can for our 
people, and I will certainly work very hard to make that 
happen.
    Senator Warner. On the subject of a future round of BRAC 
decisions, as late as last evening I met with senior officials 
at the Department of Defense and suggested, if it indeed is 
their intent to have legislation this year, that it be sent 
forward as quickly as possible, and it might, as I told the 
chairman, come this week. I say that because the House in all 
likelihood will not incorporate that into its markup, Mr. 
Chairman. I do not know if you are aware of that, and therefore 
significant responsibility would fall on the Senate for 
initiating such that it could become a conference item.
    In the past, I have supported these BRAC rounds, and in 
fact I was coauthor with Senator Dixon years ago of the 
statute. Regrettably in the last administration, and I am 
speaking just for myself, I felt there were some errors made 
which violated the spirit of trying not to let political 
influence make the decisions.
    So I would hope that each of you would commit to the 
committee two things: one, to keep a watchful eye out to 
preclude any political decisions that might influence, or, make 
it impossible for the Department of Defense to eliminate in a 
fair and careful way such infrastructure as it deems no longer 
necessary for our national security--assuming we do get 
legislation through.
    Second, as this procedure is followed by the military 
departments, that you be ever mindful of the impact of these 
closures on the local communities. I have had an opportunity to 
travel through all of our 50 States and spent a lot of time on 
military installations. It is not just an economic connection 
between the community and the installation. It goes back for 
generations.
    The communities embrace the men and women who come 
periodically and stay for only 2 or 3 years, and then go on to 
other assignments, but they embrace them as a family, and this 
is a very difficult decision for these communities to accept 
if, in fact, a BRAC commission decides that this particular 
installation in their community which they have loved and cared 
for so well for many years is no longer needed.
    So take into consideration those two things, and I will 
start with you, Dr. Fiori, one, the politics, two, the 
communities.
    Dr. Fiori. I will absolutely commit to you, sir, that I 
will keep a watchful eye to prevent political decisions, or 
effects of the decisions of the BRAC. I think it should be an 
open and fair process, whatever the follow-on to the BRAC might 
be.
    As far as being with the community, having been in the 
military for many years, I always remember how kind and helpful 
the communities have been in the years I was in, and I have in 
the past worked quite a bit to helping communities. That is, as 
they downsize Government facilities, and working with the 
community, if it can be done in a fair and equitable manner, 
that is what I will dedicate myself to once we know what 
facilities have to be shut down.
    Mr. Johnson. I would redouble the comments of my colleague. 
Certainly, the communities are very, very important, and it is 
important to make sure that the process is fair. I was a little 
naive, perhaps, in 1993, but I saw that as an open and fair 
process and did not feel political pressures. I was hosted very 
well at these communities that you speak of, sir, and I could 
feel the pain, and I have also seen it from the other side, and 
I appreciate your support, and I commend to you that we will be 
open, fair, and also work with the communities.
    Senator Warner. I thank you very much for that, and I did 
not suggest that it was the BRAC commission, but the problem 
came subsequent to the actions of the BRAC commission.
    Mr. Gibbs.
    Mr. Gibbs. Yes, Senator, I certainly will do all that I 
can, if confirmed, to ensure that the process for right-sizing, 
if you will, the military installations and establishments is--
the political influence is reduced to the minimum amount 
possible. Having had some experience in the right-sizing of the 
defense industry during the 1990s, and having had two closed 
facilities, I have seen first-hand the impact that it has on 
communities. It is essential that it be done in all fairness to 
the communities involved, and it will be if I am confirmed by 
you.
    Senator Warner. Mr. Chairman, I am very satisfied with our 
hearings today. I thought we had an excellent round, and again 
I commend the President and the Secretary and each of you who 
come forward to volunteer your services for continuation in 
public office. I wish you well, and you are going to have my 
support.
    Thank you.
    Chairman Levin. Senator Warner, thank you. While Senator 
Warner and I may not agree as to whether or not there was a 
political factor that intruded in the last round, we do agree 
that there needs to be an additional round of base closings. 
That is what is important, because this is a question that we 
are going to face in the Senate.
    Senator McCain and I have already introduced a BRAC bill. 
The administration's version, as I understand it, coming to us 
perhaps this week, and we welcome that.
    There is no way we are going to be able to adopt an 
additional round or rounds of base closings and realignments 
without the full support of the Pentagon and the 
administration. It just will not happen.
    A political factor that was debated last time, frankly, was 
not a relevant concern in the last vote, because the last vote 
had nothing to do with the last administration running around 
the base closing. It had to do with the next administration, 
whichever it might be, and yet it was defeated also. It was 
defeated for the reason that Senator Warner gave, I think, 
which is the fear that local communities understandably have, 
and the closeness that local communities have to our bases.
    We have been through it in Michigan many times. I know 
first-hand the pain, and I know that fear. I also know that it 
can be overcome. That if, after closings, we really work with 
the local communities well, that some of those fears can, in 
fact, be overcome, that the reuses can be very economically 
productive, indeed, to the local community. They do not have to 
represent the feared loss. They can be a plus instead of a 
minus. In many cases where the fear was the most severe, it 
turned out that the benefit turned out to be the greatest.
    So we just simply have to be efficient with the use of our 
resources. We are going to look to you, the three of you 
particularly that have addressed this issue this morning, to 
give us the best advice you can on why it is we will be saving 
money if there is another BRAC, and what those savings are. We 
need the three of you to look immediately upon confirmation at 
the history of base closings.
    Mr. Johnson, you have been personally involved in one, but 
we need all three of you to look at the history, to tell us 
what savings, in fact, there have been, or cost avoidances, as 
it is sometimes called, because there is some skepticism here 
on the Hill as to whether or not our defense agencies have 
shown savings.
    Now, common sense tells us if you have excess 
infrastructure, you close it. That is the business common sense 
that I think most of us have. You cannot afford to keep 
something going if it is not serving a full purpose, an 
efficient purpose, but I have to tell you, there is a great 
deal of skepticism about the numbers involved here as to 
whether or not the reported savings are, in fact, accurate.
    So I would encourage and urge each of you, when you get to 
your offices, to weigh in on that issue, because our colleagues 
do need the assurance that, in fact, this is not just a 
theoretical savings that we are talking about, but that history 
has shown that in fact the reported savings have been fairly, 
indeed, assessed.
    Senator Warner. If I might further comment. We have a 
rather challenging schedule before the committee as far as our 
markup, and a decision has to be made by the committee as to 
whether or not we will have a hearing before our markup and if 
not, whether this action should be reviewed by the committee 
and then brought in as a floor amendment. I think you and 
Senator McCain could come back to the committee with a 
recommendation. I want to try to be supportive in this matter.
    Chairman Levin. We appreciate that, and I think as you have 
suggested we will try to work a hearing in if we possibly can 
in the schedule that we have. There has been a great deal of 
debate on this subject, and a great number of votes over the 
years. Nonetheless, if we can plan a hearing I think it would 
be valuable.
    Senator Warner. But that issue of the savings to the 
Defense Department is an integral question, if not the pivotal 
one, that has to be answered, in my judgment, in a favorable 
way, before you would get sufficient votes on both sides of the 
aisle.
    Chairman Levin. Thank you again, Senator Warner. Thank you 
for your support of this issue.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman. I want to 
welcome this distinguished panel here this morning, and I look 
forward to working with you on issues that affect the 
Department of Defense.
    I would like to direct my comments specifically to the 
nominee for Assistant Secretary for Civil Works. Congressman 
Parker will have considerable influence over an issue that 
greatly affects Missouri's agriculture, recreation, 
environment, and economy, and that is the Missouri River. As 
many of you will recall, 8 years ago Missourians faced one of 
the worst floods in memory. This year, we saw communities up 
and down the river battling against a flood once again.
    Meanwhile, the U.S. Fish & Wildlife Service has proposed to 
shift the flow of the Missouri River so more water passes 
through our State in the spring and less in the summer. If this 
so-called spring rise proposal goes into effect, it could have 
devastating consequences, including increased likelihood of 
flooding, a shutdown of the barge industry and hundreds of 
millions of dollars of economic loss. It is up to one agency, 
the Army Corps of Engineers, to decide whether or not to 
implement the Fish & Wildlife Service's plan.
    The Corps could propose an alternative plan, one that would 
protect endangered species and yet not pose such a threat to 
farmers and families and businesses in Missouri. Just recently, 
Senators Kit Bond, Tom Harkin, Chuck Grassley and I added 
language to the Energy and Water Development Appropriations 
bill that would give the Corps more leeway in choosing a plan 
to manage the Missouri River.
    Should this language survive the House-Senate conference, 
which we fully expect it to, the Corps of Engineers should no 
longer feel obligated to adopt the Fish and Wildlife Service's 
recommendation for spring rise. Certainly, we want and fully 
expect the Corps to assist in recovery of endangered species 
along the Missouri River, but we believe the Corps can do this 
without implementing a spring rise or a summer low flow on the 
river.
    Congressman Parker, I would welcome your comments on this 
issue before asking you a couple of questions.
    Mr. Parker. Senator Carnahan, first of all let me thank you 
for sending some questions over to the Corps. When I walked 
into the hearing they handed me the status and so if you would 
permit me, let me just read their statement to you on what is 
the current status.
    The master manual revision has been on hold for a little 
more than a year, during which the Army Corps of Engineers has 
been involved in a consultation process with the Fish & 
Wildlife Service under the terms of the Endangered Species Act. 
By the end of the summer, the Corps will produce a revised 
draft environmental impact statement on the master manual 
revision.
    At this point, no preferred alternative has been selected 
by the Corps, nor will a single alternative be identified as a 
recommended alternative in the revised draft environmental 
impact statement. A Corps recommendation for the operation of 
the Missouri River system will not be developed before the end 
of the National Environmental Policy Act process.
    Now, in saying that, I do not understand all the details 
about the situation. A lot of that information has not been 
shared with me, but I can assure you that the Missouri Master 
Water Control Manual will not be revised without the personal 
oversight of the Assistant Secretary of the Army for Civil 
Works, if I am confirmed, and in that process I will be dealing 
directly with your office on that, and with you.
    Senator Carnahan. Well, that takes care of most of my 
questions, but I will just follow up with this one, because I 
am concerned about a report that the process is currently being 
driven by Corps officials out in the field. Can you assure me 
that upon taking office this process will receive your 
attention and the attention of high-level Corps officials?
    Mr. Parker. I can assure you of that, if confirmed.
    Senator Carnahan. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you, Senator Carnahan.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for having this hearing. I want to add my welcome to 
the distinguished panel, and also your families that are here 
gathered. I know how important the families are to your future, 
and to what you will be doing for our country. I have some 
questions here.
    My first one is to Mr. Gibbs. In dealing with privatization 
of services and outsourcing, how do you plan to ensure that the 
goal of cost-savings is actually achieved? What are your views 
in requiring contractors to account for their performance?
    Mr. Gibbs. Well, certainly I support the concept, Senator, 
of having the most effective and most cost-efficient manning of 
our installations and facilities, privatization being one of 
those, the public-private competition done under A-76. 
Certainly I think it is incumbent upon the agencies that do go 
into that to report back periodically as best they can as to 
how the actual outcomes compare to those estimated at the time 
the process is undertaken and a decision is made.
    I do not have any specific plans at this point to develop a 
reporting process, but I can assure you that, if I am 
confirmed, there will be one.
    Senator Akaka. Thank you.
    Mr. Johnson, in your position as Assistant Secretary for 
Installations and Environment for the Department of the Navy, 
what role will you have in addressing the training needs of the 
Navy and Marine Corps with respect to the situation on Vieques, 
and what are your thoughts regarding finding an alternative 
training site to replace the training facility in Vieques?
    Mr. Johnson. I am sure, if you confirm me, one of my 
largest tasks will be to find the opportunity for sailors and 
marines to train and, as Senator Inhofe mentioned, in a live 
fire situation. I believe that, as we go forward, we have to 
find good ranges, but we also have to have a good balance 
between the military needs and the environmental and other 
encroachment needs, so I will work that very, very hard for the 
proper balance.
    Senator Akaka. Do you have a place in mind, an alternative?
    Mr. Johnson. No, sir. I have not been involved in any 
discussions on Vieques. I have read a lot, but I have not been 
involved, and do not know the status, sir.
    Senator Akaka. I took note of your assessment that 
encroachment is a serious problem, and it is, and it is a 
serious problem that is having a negative impact on training. 
What are your thoughts regarding the relationship between 
communities and the military in addressing the issue of 
encroachment?
    Mr. Johnson. In everything that we do, we have to involve 
the communities. As proud as I am of our Armed Forces, first we 
are citizens of our country and our community, so we have to 
work very closely with the community. Normally we can find a 
balance with the community, and we will work on that.
    Senator Akaka. I think you know that in Hawaii we are 
working with the community on Koamokoa. It is a training site 
with live fire, and I must commend the Army there, General 
Dubik, who has been dealing with this and has, I thought, 
worked very well with the community, and you are correct, you 
have to work with the community in dealing with this.
    Dr. Fiori, I took note of your support for increasing the 
contract threshold under the Davis-Bacon Act. What assurances 
can you provide to mitigate the negative impact this would have 
on Federal workers and local economies, and what steps would 
the Department take to avoid problems experienced by States 
that have repealed prevailing wage laws, which include cost 
overruns and expensive change orders, to correct mistakes and 
poor workmanship?
    Dr. Fiori. Senator, the Davis-Bacon laws and requirements 
have been very successfully addressed in activities that I have 
participated in in the past, whereby we were able to meet those 
requirements, and also perhaps not prevent cost overruns and 
other contractual problems by working together with the 
appropriate unions, the appropriate people.
    I think we can be very successful working with Davis-Bacon. 
The question I was asked is, should we increase the limits, and 
I think I answered that in a positive fashion, but until I get 
confirmed and really study the problem in depth, I doubt that I 
could be much more proficient in my answer, based upon my past 
experiences.
    Senator Akaka. My time is up.
    Chairman Levin. Please finish. I have no more questions, so 
when you are done, we are done.
    Senator Akaka. Thank you, Mr. Chairman.
    I am pleased to see, Dr. Fiori, your willingness to work 
with both the military and civilian workforce to accomplish 
your mission. I also took note of your assessment that the 
establishment of policy and programs to address the legacy of 
unexploded ordnance and munitions need to be a top priority. 
What types of procedures and techniques do you believe should 
be developed to characterize the properties to gain public and 
regulatory agency acceptance for the proposed cleanup plans?
    Dr. Fiori. The UXO, the unexploded ordnance, is certainly a 
major issue, and one of the three, actually one of my four top 
priorities. I think we can address it in many ways, and the 
most important way is to prioritize the difficulty of the 
different facilities, because there have been all sorts of 
predictions on how many years and how much money it will take 
to clean everything up, and I am accepting that as factual for 
the moment at least, and with that in mind we have to look at 
those areas that need immediate cleanup, those areas that 
affect the local communities, or our military capabilities the 
most.
    We need to do additional research and development when it 
is appropriate. I would say the different explosives have 
different problems, and I am not an explosives expert, and I do 
intend to be much more involved in the whole issue of 
unexploded ordnance. I think we can develop a priority listing 
and go after the highest priority things. How do you go after 
the highest priority things? You look at what your R&D base is, 
and in many cases you are going to find solutions. So we have 
to be very smart in looking at the entire research and 
development community.
    I am not aware at the moment how much work we have done 
with the national laboratories on high explosives, and I would 
be very willing and anxious to inquire much more about how we 
work with the national labs. It is a very difficult problem. We 
also have to work with the community, because in some cases, as 
was testified recently, it could affect people's property and 
their safety where they are living, and we have programs in 
place to make that a very high priority.
    So with that, I would share with you, Senator, that I look 
forward to studying this issue a lot more and trying to come up 
with an intelligent solution that can serve the Army and also 
our communities.
    Senator Akaka. Thank you for your responses.
    Mr. Chairman, I do not want to leave Mr. Parker out. I want 
to say, Mr. Parker, that I feel the Corps of Engineers has 
served the Pacific very well, and I hope we can continue to do 
that.
    As you pointed out, there are some problems, but that is 
what we are here for, to try to correct them as best we can. 
They have done well and helped the communities out in the 
Pacific as well, all the way down to Asia, and I hope we can 
continue to do that.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka. We will leave the 
record open for the usual period of 48 hours. We will continue 
to review the various paperwork which has been presented to us, 
to get answers to questions which have been asked relative to 
that paperwork, and to try to get these nominations before the 
full committee for markup and consideration as soon as 
possible, and then before the Senate as quickly as possible, 
and we will stand adjourned.
    [Whereupon, at 11:40 a.m., the committee adjourned.]

    [Prepared questions submitted to John P. Stenbit by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   July 27, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   John P. Stenbit. 
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I whole-heartedly support full implementation of the 
Goldwater-Nichols and Special Operations reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I am not yet fully familiar with the Department's efforts 
to implement these reforms. However, if confirmed, I will review the 
extent to which these reforms have been implemented and assess 
appropriate actions I can take to promote further implementation.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. It is my understanding that these reforms have 
significantly improved the organization of the Department of Defense, 
focused our joint warfighting capabilities, enhanced the military 
advice received by the Secretary of Defense and provided for more 
efficient and effective use of defense resources in responding to 
national security challenges.
    The goals of Congress in enacting these defense reforms, as 
reflected in Section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Question. Do you agree with these goals?
    Answer. Yes, I agree with these goals.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. My understanding is that the Department is continuing to 
examine ways to better support the goals of the reform in light of our 
ever-changing environment. If confirmed, I will fully support the 
intent of the reforms and advocate legislative proposals and policies 
that will enhance the Department's ability to respond to national 
security challenges of the 21st century.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense (Command, Control, Communications, 
and Intelligence)?
    Answer. If confirmed, my principal duty will be to advise the 
Secretary of Defense on space and information superiority. I will 
exercise policy, guidance, planning, resource management, and program 
oversight of mission areas.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have over 30 years of practical and managerial 
engineering experience in the defense industry and with the DOD. As an 
industry executive I was ultimately responsible for fulfilling 
corporate obligations on a myriad of defense contracts ensuring 
successful program delivery to the government and a reasonable profit 
for our employees and shareholders. I saw and experienced both the best 
and worst in DOD program management and execution. If confirmed, I will 
consider and recommend any changes that might improve the 
organizational process.
    I received both my undergraduate and master's degree in electrical 
engineering from CalTech and was later fortunate enough to study and 
teach for 2 years as a Fulbright and Aerospace Corporation Fellow at 
the Technische Hogeschool in the Netherlands.
    In addition to the 4 years that I served in the Pentagon as a DOD 
employee I have also served on Defense Science Boards, Air Force and 
Navy Study Boards, Science Advisory Groups for Naval Intelligence and 
the Defense Communications Agency (now DISA), S & T Panel Chairman for 
the Director of Central Intelligence, and Chairman of an Advisory 
Committee for the Federal Aviation Administration Administrator.
    I believe that my education, government and industry experience, 
and successful, executive level defense industry career have prepared 
me to face the exciting challenges and opportunities resident in the 
position of ASD C\3\I.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of Defense (Command, Control, Communications, and Intelligence)?
    Answer. I am unaware of any specific actions that I should take to 
further prepare myself for the position as ASD C\3\I.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. The ASD C\3\I is principal adviser to the Secretary of 
Defense for space and information superiority. As DOD's Chief 
Information Officer, the ASD C\3\I is also responsible for oversight of 
all DOD information systems and information management activities.
    Question. Are these roles--advocate, operator and overseer--in 
conflict?
    Answer. I am aware of the debate regarding the ASD C\3\I and the 
DOD CIO being dual-hatted. If confirmed, I will solicit views on both 
sides, analyze the pros and cons, and develop my position based largely 
on what is in the best interest of the Department.
    Question. Do you believe the CIO function should be separated from 
the ASD C\3\I position?
    Answer. It is my understanding that there are cogent arguments for 
and against separation. This issue merits a more in-depth study and 
assessment of the benefits and impacts. If confirmed, I will examine 
the pros and cons and offer a recommendation to the Secretary of 
Defense on a way ahead.
    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense
    Answer. If confirmed, I will function as DOD Chief Information 
Officer (CIO) and as the principal staff assistant and advisor to the 
Secretary of Defense for all space and information superiority matters. 
In particular I will be responsible for providing policy, guidance and 
oversight for functions including:

        <bullet> Command, control, communications, intelligence, 
        surveillance, and reconnaissance sensors;
        <bullet> Information technology, management, operations, 
        assurance, and superiority;
        <bullet> Electronic commerce and business process reform;
        <bullet> Intelligence and counterintelligence;
        <bullet> Personnel, industrial, and classification security;
        <bullet> Frequency-spectrum management;
        <bullet> Space systems; and
        <bullet> Critical infrastructure protection.

    Question. The Deputy Secretary of Defense
    Answer. If confirmed, my relationship with the Deputy Secretary of 
Defense will be the same as that described above in relation to the 
Secretary of Defense.
    Question. The Under Secretaries of Defense
    Answer. If confirmed, my relationship with the Under Secretaries of 
Defense and other senior officials of the Department will be based on 
the role of each principal official within the Department of Defense 
with respect to my functions as described above in the relationship to 
the Secretary of Defense. With respect to acquisition of information 
superiority and space systems, I will report to the Deputy Secretary of 
Defense through the Under Secretary of Defense for Acquisition, 
Technology and Logistics.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict
    Answer. If confirmed, my relationship with the Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict will be 
similar to that described below in relation to the other Assistant 
Secretaries of Defense. In particular, I will coordinate the 
Psychological Operations aspect of Information Operations.
    Question. The other Assistant Secretaries of Defense
    Answer. If confirmed, my relationship with the Assistant 
Secretaries of Defense and other senior officials of the Department 
will be based on the role of each principal official within the 
Department of Defense with respect to my functions as described above 
in the relationship to the Secretary of Defense.
    Question. The General Counsel of the Department of Defense
    Answer. If confirmed, my relationship with the General Counsel will 
be based on my role as principal staff assistant to the Secretary of 
Defense for space and information superiority matters and as DOD CIO.
    Question. The Chairman of the Joint Chiefs of Staff
    Answer. If confirmed, I will continue to coordinate and exchange 
information with the Chairman of the Joint Chiefs of Staff on space and 
information superiority matters to ensure all policy and guidance 
issues under my cognizance are supportive of the Commanders in Chief 
and Military Services.
    Question. The Commander in Chief United States Special Operations 
Command
    Answer. If confirmed, my relationship with the Commander in Chief 
United States Special Operations Command will be based on my role as 
the CIO and as principal staff assistant to the Secretary of Defense 
for space and information superiority functions. I will coordinate and 
exchange information with the Commander in Chief United States Special 
Operations Command and Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict on matters of mutual interest to 
ensure policy and guidance matters under my cognizance are supportive 
of the CINC's roles and missions.
    Question. The regional combatant CINCs
    Answer. If confirmed, my relationship with the regional combatant 
CINCs will be based on my role as principal staff assistant to the 
Secretary of Defense for space and information superiority functions 
and as CIO, and I will coordinate and exchange information with the 
CINCs on matters of mutual interest to ensure management policy and 
guidance are supportive of the CINCs' roles and missions.
    Question. The Director of the Defense Intelligence Agency
    Answer. If confirmed as the Secretary of Defense's principal staff 
assistant for space and information superiority functions, I will 
exercise authority, direction and control over the, Defense 
Intelligence Agency. Accordingly, I will work with the Director of 
Central Intelligence to ensure that their space and information 
superiority programs follow DOD guidance in the areas of architecture, 
interoperability, security, acquisition and related areas.
    Question. The Director of the National Imagery and Mapping Agency
    Answer. If confirmed as the Secretary of Defense's principal staff 
assistant for space and information superiority functions, I will 
exercise oversight of the National Imagery and Mapping Agency. 
Accordingly, I will work with the Director of Central Intelligence to 
ensure that their space and information superiority programs follow DOD 
guidance in the areas of architecture, interoperability, security, 
acquisition and related areas.
    Question. The Director of the National Security Agency
    Answer. If confirmed as the Secretary of Defense's principal 
assistant for space and information superiority functions, I will 
exercise oversight of the National Security Agency. Accordingly, I will 
work with the Director of Central Intelligence to ensure that their 
space and information superiority programs follow DOD guidance in the 
areas of architecture, interoperability, security, acquisition and 
related areas.
    Question. The Under Secretary of the Air Force.
    Answer. If confirmed, I will coordinate and exchange information 
with the Under Secretary of the Air Force on space and information 
superiority matters particularly relating to space matters, appropriate 
to ensure all policy and guidance issues under my cognizance are 
supportive of the Commanders in Chief and Military Services.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense (Command, Control, 
Communications, and Intelligence)?
    Answer. If confirmed, one of my major challenges will be to help 
the Department achieve space and information superiority. Information 
needs to be seen as a strategic asset rather than a supporting element.
    I believe that key challenges include: promoting secure, reliable, 
interoperable solutions that break down stovepipes and enable joint and 
coalition operations, transforming business practices to accelerate 
acquisition and development to keep pace with commercial world, 
changing the mind set throughout DOD to examine and incorporate 
transformational concepts, ensuring intelligence capabilities keep pace 
with the emerging threats, paying more attention to people and 
protecting critical cyber and physical infrastructures, information, 
and advanced technologies.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will ensure that ASD C\3\I is properly 
organized to address these challenges. In coordination with my 
counterparts elsewhere in the Department, I will develop a strategy for 
addressing each of these areas and implement it through policy, 
planning guidance, and effective oversight.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of Defense 
(Command, Control, Communications, and Intelligence)?
    Answer. If confirmed, I will look to address the following:

        <bullet> Need to reform business practices for the information 
        age;
        <bullet> Be able to acquire key IT on commercial time scales;
        <bullet> Need to leverage the limited numbers of acquisition 
        professionals within C\3\I;
        <bullet> Need to fix outdated IT infrastructure within OSD.

    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, my focus will be on creating management 
mechanisms and metrics to transform the military in space, 
intelligence, information operations and assurance, C\3\ and IT.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Assistant Secretary of 
Defense (Command, Control, Communications, and Intelligence)?
    Answer. If confirmed, my priorities will be to implement actions to 
achieve space and information superiority.
                        information superiority
    Question. Many have described the major responsibility of the 
Assistant Secretary of Defense (Command, Control, Communications, and 
Intelligence) as ``information superiority.''
    Describe your vision of information superiority for DOD, including 
any major impediments to information superiority facing the Department.
    Answer. To me, information superiority means the right information, 
to the right place and the right people, at the right time, assured and 
protected while denying our adversaries the same.
                         information operations
    Question. Joint Vision 2020 and most defense experts advocate 
``information superiority'' as a critical element of success in 21st 
century conflict. Disrupting the information systems of adversaries, 
while protecting our own systems from disruption ( i.e., information 
operations) may well be a major element of warfare in the future.
    Describe your vision for the role of information operations in the 
conduct of military operations.
    Answer. It is my understanding that as discussed in Joint Vision 
2020 and the Quadrennial Defense Review, the vision is to evolve 
Information Operations from a supportive capability to a ``core'' 
capability and a mission area not unlike air, land, sea, and fully 
integrated into the full spectrum of military operations. I believe we 
should continue to evolve our capabilities, enabling us to shape the 
information environment and provide pre-conflict management courses of 
action. If conflicts arise, we will ensure that IO capabilities will 
integrate with our traditional kinetic force capabilities.
    Question. What is your assessment of the unity of the efforts 
across the Department, the Defense Agencies and the respective military 
services in this area?
    Answer. If confirmed, I will review this topic aggressively. I feel 
that there are well meaning, dedicated professionals working for the 
best interests of their organizations or programs. As IO continues to 
evolve within DOD, I believe we should look for refinements in how the 
Department organizes to plan and execute IO.
                         information assurance
    Question. The vulnerability of Department of Defense information 
systems has been repeatedly demonstrated. The protection of our 
critical information infrastructure has become a high priority. 
Training and retention of personnel in this developing profession of 
computer security and infrastructure protection has been challenging.
    Are you satisfied with the current level of effort to protect 
critical Department of Defense information infrastructures?
    Answer. I believe that the Department has made significant progress 
over the past few years to protect its information infrastructure, 
however, protection of defense information infrastructure is an ongoing 
effort that will never reach a final conclusion. Not only can we not 
rest on our laurels, but also we need to find new ways to do business 
to respond more rapidly. If confirmed, this will be a focus area.
    Question. Have sufficient resources been allocated for this task in 
the President's budget request for defense?
    Answer. For Information Assurance, it is my understanding that 
there are sufficient resources allocated for protection of our 
information infrastructure. That does not mean that an increase in 
resources would not improve the situation--clearly it would. But 
resource needs for this task must be balanced against other critical 
requirements.
    Question. What are your views on the professional development and 
retention of the highly skilled personnel required to assure the 
security of our Department of Defense information systems?
    Answer. I believe that in DOD, as in most organizations, 
development and retention of skilled people is a critical task and one 
of the most challenging. It is my understanding that the DOD has been 
making strides to identify and improve the management of these critical 
personnel, but there is a lot of work to be done, especially in the 
development and retention arenas. We can't employ technical solutions 
without the trained personnel to implement them and operate the 
networks correctly.
    Question. In Section 922 of the Fiscal Year 2001 Floyd D. Spence 
National Defense Authorization Act, an Information Security Scholarship 
Program was authorized. The purpose of this program is ``to encourage 
the recruitment and retention of Department of Defense personnel who 
have the computer and network security skills necessary to meet 
Department of Defense information assurance requirements.''
    What is the status of implementation of this program?
    Answer. It is my understanding that this upcoming Academic Year 
2001-2002 will serve as a pilot year in which the Department will 
prototype programs at schools that have been designated by DOD as 
Centers of Academic Excellence in Information Assurance Education. 
These will provide scholarships with internships for non-DOD students 
at these institutions, as well as scholarships for current DOD civilian 
employees and military members, in exchange for a period of obligated 
service with the Department as provided for by the statute. These 
prototype approaches will be evaluated for cost effectiveness and 
management efficiencies, and lessons learned will be incorporated into 
program planning for future years. A request for proposal has been 
released to the 23 institutions designated as Centers of Academic 
Excellence and DOD is awaiting their response.
                       responsibilities in space
    Question. In the past, the Assistant Secretary of Defense (Command, 
Control, Communications, and Intelligence) has been assigned the lead 
within the Office of the Secretary of Defense for military space 
matters. With the realignment of responsibilities identified by the 
Secretary of Defense in implementing the recommendations of the Space 
Commission, it is not clear exactly what role the Assistant Secretary 
of Defense (Command, Control, Communications, and Intelligence) will 
have in oversight of military space matters.
    Please describe the role you will fill in overseeing military space 
matters if you are confirmed.
    Answer. If confirmed, it is my understanding that my role would be 
to ensure appropriate senior-level policy, guidance, oversight, and 
advocacy for space. I will work closely with the heads of DOD 
components in carrying out my responsibilities.
    Question. Please describe the most significant challenges facing 
the Department of Defense and the intelligence community in providing 
space support to the warfighter.
    Answer. With respect to challenges facing the United States, the 
DOD is increasingly dependent on its civil, commercial, and defense and 
intelligence space assets. With that dependence comes vulnerability to 
hostile acts. The Nation needs a capability to deter attack on space 
assets, and systems to defend satellites in orbit, the ground stations 
that control them, and the electronic links between them.
    The U.S. and other nations that make use of space face real threats 
to the operations of their satellites. We know that other nations have 
jammed telecommunications, that Russian entities market devices that 
can jam GPS signals, and that foreign satellites manufacturers market 
so-called ``micro satellites'' to other foreign countries that can be 
used for offensive actions against satellites. In light of U.S. 
dependence on vulnerable space assets, it would be contrary to U.S. 
security interests not to develop, test, and deploy the means of 
deterring attack on and defending space systems.
    In addition, U.S. space capabilities must be modernized to support 
our 21st century needs. Space is critical to strengthening our 
intelligence, to serve both our short-term and our long-term national 
security needs. If confirmed, I will personally make establishing a 
strong spirit of cooperation between the Department of Defense and the 
rest of the intelligence community, under the leadership of the DCI, 
one of my top priorities. I believe we must strengthen our intelligence 
and our space capabilities, along with the ability to protect those 
assets against various forms of attack.
                           funding challenges
    Question. During testimony before the Senate Armed Service 
Committee, the previous incumbent in the position for which you have 
been nominated indicated that the Department of Defense faced 
significant funding shortfalls in the area of information assurance.
    What is your opinion of the status of the Department's information 
assurance program?
    Answer. It is my understanding that the program is in relatively 
good shape, but there is always room for improvement--especially in a 
field where technology is changing rapidly, the threat is enabled by 
this same technology, and the operational concepts are still maturing. 
I believe there are improvements that have to be made with how we 
manage and retain our people, how fast we develop and deploy 
information assurance technology, and how we operationalize that 
technology.
    Question. If you believe that there are shortfalls, and assuming 
you are confirmed, will you seek increases in funding in this area as 
part of future budget preparations?
    Answer. It is my understanding that this issue is being addressed 
as part of the Quadrennial Defense Review. I believe that additional 
resources for information assurance must, of course, be balanced 
against other critical Department requirements.
                              smart cards
    Question. In November 1999 the Deputy Secretary of Defense directed 
all Department of Defense (DOD) components to implement the use of a 
standard smart card containing integrated circuit chips, magnetic 
stripes and bar codes for use as the Department-wide common access card 
and as a Public Key Infrastructure authentication device, and assigned 
responsibility for this program to the DOD Chief Information Officer. 
To date the Department has not fully implemented the deployment of this 
technology.
    If confirmed, what steps would you plan to take to provide central 
direction to fully implement the use of smart card technology within 
DOD?
    Answer. It is my understanding that the Department is embarked on 
an aggressive and accelerated program to implement smart card 
technology as a common access card. Smart card technology can be used 
in many areas to do the business of the Department smarter and faster 
while providing security for our classified information and the 
proprietary property of our business partners. I feel that the 
application of smart card technology will contribute to the 
Department's efforts to transform business processes, enhance missions, 
increase security, reduce costs, and improve quality of life.
    Understandably, implementation of such cutting-edge technology in a 
large, worldwide organization takes time and has many challenges. 
Nonetheless, if confirmed, I would support the implementation of this 
technology in the Department. To this end, I would direct my attention 
to the implementation plan of the program to ensure the Department is 
leveraging the many smart card technologies.
    Question. Do you believe that the Navy, which has served as the 
lead agency for development of this technology, should be designated as 
the executive agent for smart cards within DOD?
    Answer. My understanding is that the Navy is working diligently as 
the lead for the development of the smart card technology in the 
Department. This and continued significant progress in this program 
would certainly be important factors in any consideration of a designee 
for executive agency. If confirmed, I will work quickly to consider 
this decision.
                   navy/marine corps intranet program
    Question. The committee understands that there may be differences 
of opinion within the Department about the pace at which the Navy/
Marine Corps Intranet (NMCI) program is proceeding. At least some of 
these differences appear to focus on the extent of testing that must be 
conducted to ensure that the program is ready to proceed to broader 
implementation.
    What are your views on the appropriate level or duration of testing 
the Department should conduct on the NMCI program?
    Answer. I believe that systems such as NMCI must demonstrate that 
the capabilities satisfy user requirements and that interoperability 
with military systems are fully demonstrated. It is my understanding 
that the ASD C\3\I staff is currently working with Director Operational 
Test and Evaluation and other OSD offices to develop a final test 
strategy that is consistent with a reasonable fielding rate for NMCI.
                         intelligence programs
    Question. With the development of increasingly advanced information 
technologies, and the evolving role of intelligence in support of 
military forces and operations, the current intelligence categories--
NFIP, JMIP, and TIARA--appear to be increasingly blurred.
    In your view, should these categories be reevaluated?
    Answer. I agree. There is a blurring of these categories. I feel 
that it may be useful to revamp our intelligence categories to more 
effectively focus on the customer and mission capabilities.
    Question. Do you believe that the current management and budgeting 
oversight of these programs between the Secretary of Defense and the 
Director of Central Intelligence is adequate?
    Answer. I believe the existing legislation is adequate. 
Nonetheless, if confirmed, I would like to study this issue in more 
detail before I make any recommendations for change.
    Question. If not, what changes would you recommend?
    Answer. N/A.
    Question. In your view, do the Office of the Secretary of Defense 
and the Joint Staff have sufficient influence over major programmatic 
and architecture decisions within the National Foreign Intelligence 
Program?
    Answer. I have no knowledge of the effectiveness of this influence, 
but it is certainly critical that it be effective. If confirmed, I'll 
work to enhance communication and improve the quality of the budget 
dialog to reach consensus with the DCI in this important area. I look 
forward to engaging on these issues if confirmed.
          oversight of modernization of intelligence programs
    Question. There have been continuing questions about whether the 
National Security Agency (NSA) will be able to modernize signals 
intelligence mission capabilities to respond to new intelligence 
challenges.
    The Floyd D. Spence National Defense Authorization Act for Fiscal 
Year 2001 directed the Office of the Assistant Secretary of Defense 
(Command, Control, Communications, and Intelligence), the Director of 
Central Intelligence's Senior Acquisition Executive and the Director of 
NSA to establish a disciplined acquisition strategy with strong 
oversight mechanisms for NSA's modernization program. In part, this 
direction resulted from concerns about NSA's capability to implement 
better acquisition management techniques and conduct rigorous, 
enterprise-wide systems engineering.
    In addition, recent conflicts have illustrated continuing 
deficiencies in the area of map production, analysis, and 
dissemination. Unfortunately, there have also been questions about the 
ability of the National Imagery and Mapping Agency (NIMA) to manage and 
implement a major modernization and transformation of its capabilities.
    What is your view of the appropriate oversight role that the 
Assistant Secretary of Defense (Command, Control, Communications, and 
Intelligence) should play in management of major acquisition programs 
at NSA and NIMA?
    Answer. I believe that the ASD C\3\I oversight role is to ensure 
that appropriate acquisition processes are in place and executed to 
ensure the successful delivery of the NSA and NIMA programs so critical 
to our Nations security. For NSA and NIMA acquisition programs, the ASD 
C\3\I staff has worked extensively with the DCI's Senior Acquisition 
Executive. If confirmed, I will actively work with my DCI counterpart 
to build on the progress made to date.
      commercial vs. military requirements for frequency spectrum
    Question. In recent years, growing demands for the use of the 
frequency spectrum for defense and civilian communication needs have 
increased the competition for this finite resource.
    If confirmed, what would be your role in spectrum management issues 
within the Department of Defense?
    Answer. If confirmed, my responsibility in spectrum management is 
to ensure DOD has assured access to the necessary spectrum it needs to 
conduct operations and warfighter training to effectively execute those 
operational missions.
    Question. If confirmed, would you represent the Department of 
Defense (DOD) in interagency and international negotiations regarding 
spectrum management issues?
    Answer. Yes.
    Question. What steps would you recommend the Department of Defense 
take to improve its spectrum management policies?
    Answer. If confirmed, I would make one of my highest priorities the 
review of current policies and processes, and the development of a 
strategy to make full use of emerging spectrum-efficient technologies.
    Question. If confirmed, what actions would you take to review the 
Department's total spectrum requirements and ensure that new systems 
are designed to ensure efficient spectrum utilization by the Department 
of Defense?
    Answer. If confirmed, I expect to update requirements projections 
and to identify solutions that include new spectrum-efficient 
technologies.
    Question. What do you see as the proper balance between defense and 
other uses of the frequency spectrum, and what is your view of the 
current process by which those needs are balanced?
    Answer. Although I am not familiar with the details, I understand 
the current process for spectrum allocation provides equal opportunity 
to both the private sector and our government to request and debate 
frequency spectrum based upon requirements. If confirmed, I will 
continue to support this process.
    Question. What are your views of proposals to reallocate spectrum 
in the 1755-1850 frequency band from DOD and other Federal users to 
make this band available for third-generation internet (3G) use?
    Answer. Although I am not completely familiar with all the details 
of this issue, it is important to protect the military capabilities 
that need the 1755-1850 MHz band. If additional spectrum is needed, I 
would encourage exploring all alternative bands and I will, if 
confirmed, work with concerned parties to help us reach the best 
decision for the Nation on this matter.
    Question. If confirmed, what actions would you take if the study 
currently being conducted within the Department of Defense determines 
that there will be a significant cost and operational impact if the 
military services surrender the 1755-1850 MHZ band of frequencies?
    Answer. If I understand correctly, studies have already indicated 
the defense of our Nation is at risk by vacating this spectrum. If 
confirmed, I will work with other branches to help determine the best 
decision for the Nation on this matter.
    Question. Do you believe that potential solutions exist that would 
allow DOD to shift to other frequency bands, assuming sufficient 
funding were available to compensate DOD for its relocation costs?
    Answer. I understand this is a matter that is still under study. If 
confirmed, I will work with the spectrum regulators to determine if 
potential solutions exist that would allow DOD to shift to other 
frequency bands.
                         information management
    Question. In 1995, GAO designated the Department of Defense effort 
to streamline business operations and deploy more efficient standard 
information systems as a ``high-risk'' area, indicating that it was 
especially vulnerable to waste and mismanagement. Since 1995, GAO has 
continually reported that the Department of Defense has lacked 
effective management and oversight controls of the information 
technology (IT) investments. The areas of concern include controls and 
processes to:

          (1) ensure that the costs and risks of multimillion-dollar 
        projects are justified;
          (2) monitor progress and performance; and
          (3) stop projects shown to be cost ineffective or technically 
        flawed.

    A significant change in the Department of Defense IT management and 
oversight process occurred in July 1998 when the Department of Defense 
disestablished the Major Automated Information Review Council which was 
the primary body for overseeing major automated information systems and 
other IT investments.
    What is the status of efforts to improve the Department of Defense 
IT oversight process?
    Answer. I understand the implementation of the Paperwork Reduction 
and Clinger-Cohen Acts provides a strong statutory foundation for IT 
oversight. I support the progress the Department has made in building 
on that foundation by developing information and oversight controls in 
areas such as capital planning and investment, acquisition regulation 
revisions, major acquisition programs, and mission critical systems 
tracking.
    The Department of Defense reported on December 1, 1998 to the 
Defense Committees that the Department recognizes that its current IT 
management process has the following shortfalls:

          (1) minimal linkage between IT investments and functional 
        process changes;
          (2) individual systems narrowly focused on specific functions 
        and organizations rather than mission; and
          (3) fragmented systems and infrastructure, resulting in a 
        lack of fully integrated and interoperable capabilities.

    Question. Please comment on each of these problems and explain what 
the Department of Defense is doing to correct them.
    Answer. The Clinger-Cohen Act calls for the need to improve 
management processes, including the selection and management of IT 
resources. It is my understanding that DOD is developing an investment 
portfolio process to improve investment oversight for families of 
systems. This process would establish direct links between IT 
investment decisions and DOD mission priorities--not only those of 
individual organizations--ensuring functional outcomes as well as 
compliance with the Clinger-Cohen Act and related reform legislation. 
Portfolio management and oversight would also promote synchronized 
development of individual systems and their supporting infrastructures.
    By the same token, I feel that the Global Information Grid (GIG) 
policy and implementation should significantly improve the 
interoperability and integration of DOD's IT communications and 
computing infrastructure. In essence, GIG is the globally 
interconnected, end-to-end set of information capabilities, associated 
processes and personnel for collecting, processing, storing, 
disseminating and managing information on demand to warfighters, policy 
makers and support personnel. This overarching model will provide at 
once, a blueprint and an overlay for the development, implementation 
and integration of dependent and sub-architectures. By using or 
building to this model, the Department and its components will be able 
to overcome much of the fragmentation and narrowly focused IT 
solutions.
    Question. The Clinger-Cohen Act of 1996 introduced requirements 
emphasizing the need for the Department of Defense to significantly 
improve management processes, including how it selects and manages IT 
resources. For instance, a key goal of the Clinger-Cohen Act is that 
the Department of Defense should have institutionalized processes and 
information in place to ensure that IT projects are being implemented 
at acceptable costs, within reasonable time frames, and are 
contributing to tangible, observable improvements in mission 
performance.
    What is the status of the Department's efforts to implement the 
Clinger-Cohen Act?
    Answer. As I understand it from a brief review, the Department's 
approach to implementing the act has been one that builds on past 
successes and seizes the opportunities the act offers to reinvent and 
reinvigorate how information is delivered to warfighters and those who 
support them. Specifically, it is my understanding that the Department:

        <bullet> Established a governance structure that fosters a more 
        collaborative approach to policy-making and IT budgeting.
        <bullet> Uses the Planning, Programming and Budget System in 
        conjunction with the requirements and acquisition processes, to 
        ensure that the correct information investments are selected. 
        Changes have been made in the budget process to ensure full 
        participation of the DOD CIO in the decision making process.
        <bullet> Included procedures for implementing the Clinger-Cohen 
        Act and related legislation in the most recent version of its 
        acquisition regulations.
        <bullet> Made significant progress on actions to manage its 
        worldwide information infrastructure as a coherent GIG, 
        including the development of an IT architecture with 
        operational, systems and technical views that can be applied to 
        IT investment decisions.
        <bullet> Has a Defense-wide Information Assurance Program to 
        build and sustain a secure information infrastructure.
        <bullet> Is engaged in a number of initiatives to improve the 
        processes for recruiting, hiring, retaining and training 
        information technology professionals.
                    automation and management reform
    Question. GAO and others have criticized various DOD's business 
units (such as finance, accounting, personnel, inventory, 
transportation) for failing to change their business processes to take 
advantage of new commercial information technology products.
    If confirmed as DOD's Chief Information Officer, what would you do 
to ensure that DOD changes the way it does business before it spends 
new money on automation?
    Answer. I understand that the DOD CIO is responsible for promoting 
improvements to DOD work processes and supportive information 
resources. IT and process reforms are critically interrelated and 
represent a major focus for the DOD CIO. If confirmed, I intend to make 
``business process improvement'' a key factor in determining whether to 
support IT investments. In addition, for reforms to be durable, a clear 
relationship to the basic business of the Department must be 
established in the context of a sound enterprise architecture.
                   defense information systems agency
    Question. Over the past several years, a number of concerns have 
been expressed about the growth in the ``tooth-to-tail'' ratio and the 
resource drain that the defense agencies impose on the military 
services. The Defense Information Systems Agency is often used as an 
example of how defense agencies continue to grow and continue to absorb 
resources that should otherwise be dedicated to weapons procurement.
    If confirmed, what actions would you take to examine the defense 
agencies under your jurisdiction to ensure that they are providing the 
most effective support in the most efficient manner?
    Answer. I believe the Defense Information Systems Agency is an 
example of an entity that has a critical role in this era of 
information superiority and ``the network as a weapons system.'' The 
oversight responsibility for defense agencies and activities is a 
serious charge. If confirmed, I intend to review, scrub, and set 
serious goals, while applying the best management principles.
                       joint command and control
    Question. A recurring theme within the on-going strategic review 
process is that U.S. Armed Forces lack an agile, deployable joint 
command and control system. After-action analyses of all major U.S. 
military operations in the past decade similarly conclude that 
communications and information technology systems of our respective 
military services are not fully interoperable.
    In your view, what are the major impediments to the development of 
an interoperable, deployable command and control system for our 
military forces?
    Answer. In my opinion, there are several major impediments:

          1. Services develop their own Command and Control (C\2\) 
        systems and there is no process or central engineering 
        authority in place
          2. There are insufficient joint Tactics, Techniques, and 
        Procedures
          3. In addition to these above, the greatest impediment to 
        operating closely with coalition forces is restrictions on 
        national information sharing policies.

    If confirmed, I would address these issues and work with Department 
leaders to resolve them.
    Question. What role should ASD C\3\I play in ensuring the 
development of reliable and agile command and control systems?
    Answer. If confirmed, my role would be to issue policy, planning 
guidance, and to integrate and oversee service Command and Control 
acquisition. I firmly believe that OSD, working closely with Congress, 
the Services, agencies, and industry can achieve huge progress in this 
challenging and critical area of support for our warfighters. If 
confirmed, I will make this effort a primary goal during my tenure and 
hold myself personally accountable to achieve measurable progress that 
I will report annually to Congress.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense (Command, Control, Communications, and Intelligence)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Edward M. Kennedy
    1. Senator Kennedy. The Federally Funded Research and Development 
Centers (FFRDCs) are unique organizations that assist the U.S. 
Government with scientific research and analysis, systems development, 
and systems acquisition. They bring together the expertise and outlook 
of government, industry, and academia to solve complex technical 
problems that can't be solved by any one group alone. The Assistant 
Secretary of Defense for Command, Control, Communications, and 
Intelligence (C\3\I) sponsors a C\3\I FFRDC that is run by MITRE 
Corporation.
    The MITRE C\3\I FFRDC is a vital part of the Electronic Systems 
Command (ESC), the Air Force's Center of Excellence for Command, 
Control, Intelligence, Surveillance, and Reconnaissance (C\2\ISR). ESC 
is located at Hanscom Air Force Base. Like all of the FFRDCs, MITRE has 
demonstrated the value of focused and unbiased research and development 
in meeting our defense and governmental technology needs. ESC has 
recognized the exceptional value and contributions of MITRE by naming 
them the Chief Engineer for ESC. In addition to software integration 
and interoperability, MITRE has become a leader in the field of 
information security and information superiority.
    Mr. Stenbit, what is your opinion of the contributions of the 
FFRDCs to our Nation and the Department of Defense?
    Mr. Stenbit. The Federally Funded Research and Development 
Corporations are the Department of Defense's primary source of 
objective expertise for meeting emerging national security priorities 
and procuring key defense programs. As our strategic partners, they are 
essential elements of the Department's competency to accomplish the 
Secretary of Defense's direction for the services, intelligence 
agencies and acquisition communities to transform military operations 
to achieve joint capabilities. The FFRDCs bring special talent to bear 
in high interest areas, acting as the ``honest broker'' with the depth 
and breadth of knowledge and experience built through long-term 
involvement with our systems, substantial domain knowledge and thorough 
understanding of today's technological opportunities.
    In the case of the C\3\I FFRDC, for which I am the Primary Sponsor, 
MITRE Corporation is mission critical to the principal DOD 
organizations pursuing the SECDEF's priority to ``modernize U.S. 
command, control, communications, intelligence and space 
capabilities.'' The C\3\I FFRDC has played a critical role in 
modernizing U.S. C\4\ISR capabilities to provide commanders with the 
right information at the right time--securely--to dominate the 
battlefield. The C\3\I FFRDC brings special talent to bear in the high 
interest areas of missile defense, exploitation of space, acquisition 
reform, as well as in the development of the C\3\I infrastructure. With 
their in-depth, unbiased understanding of the advanced IT available in 
the commercial marketplace, the C\3\I FFRDC provides critical modern 
C\2\ architecture and general systems engineering and integration of 
joint C\4\ISR capabilities. More pointedly, the C\3\I FFRDC is 
particularly well positioned to support the Secretary of Defense's 
objective of working across the DOD and intelligence communities to 
realize both efficiencies and synergies.
    In addition to the profound contributions to the Air Force and the 
Electronic Systems Command, MITRE is helping the Army to develop its 
vision of network centric operations and the Navy in enhancing its 
capability for joint battle management. The C\3\I FFRDC is supporting 
the National Imagery and Mapping Agency, National Security Agency and 
the National Reconnaissance Office, as well as the services, in laying 
out architectures and acquisition strategies that integrate and exploit 
resources and improve dissemination and operational utility. The C\3\I 
FFRDC is providing expertise to many of our organizations in assessing 
and countering new world threats such as cyber terrorism, which can 
undermine critical infrastructure and endanger information assurance. 
The C\3\I FFRDC is assisting with the evolution of communications, 
surveillance and reconnaissance functions in space, contributing its 
technical capabilities to solving problems in areas ranging from 
frequency spectrum conflicts to radar detection to information 
processing and management. The C\3\I FFRDC is working with Joint Chiefs 
of Staff and the Combatant Commanders on improving interoperability and 
integrating existing systems for interdependent joint and multinational 
operations.

    2. Senator Kennedy. Mr. Stenbit, does the Department of Defense 
plan to continue, or possibly expand, their investment in the C\3\I 
FFRDC?
    Mr. Stenbit. The ASDC\3\I fully supports the continued use of the 
MITRE C\3\I FFRDC as a vital part of the Electronic Systems Command 
(ESC). However, we are constrained with respect to expansion by the 
number of staff years of technical support (STE) authorized by Congress 
annually. Requests from C\3\I FFRDC customers throughout DOD on both 
the Air Force and Army programs continually exceed the authorized 
limits. Therefore, careful prioritization and focus on critical 
national and DOD information superiority goals is a key controlling 
factor in making STE allocations.

    3. Senator Kennedy. Mr. Stenbit, the federally Funded Research and 
Development Centers (FFRDCs) are unique organizations that assist the 
US government with scientific research and analysis, systems 
development, and systems acquisition. They bring together the expertise 
and outlook of government, industry, and academia to solve complex 
technical problems that can't be solved by any one group alone. The 
Assistant Secretary of Defense for Command, Control, Communications, 
and Intelligence (C\3\I) sponsors a C\3\I FFRDC that is run by MITRE 
Corporation.
    The MITRE C\3\I FFRDC is a vital part of the Electronic Systems 
Command (ESC), the Air Force's Center of Excellence for Command, 
Control, Intelligence, Surveillance, and Reconnaissance (C\2\ISR). ESC 
is located at Hanscom Air Force Base. Like all of the FFRDCs, MITRE has 
demonstrated the value of focused and unbiased research and development 
in meeting our defense and governmental technology needs. ESC has 
recognized the exceptional value and contributions of MITRE by naming 
them the Chief Engineer for ESC. In addition to software integration 
and interoperability, MITRE has become a leader in the field of 
information security and information superiority.
    The President's Commission on Critical Infrastructure Protection 
noted that our Nation is increasingly vulnerable to cyber attacks from 
both foreign and domestic sources.
    What role do you see for the FFRDC organizations, such as the MITRE 
Corporation, in protecting our Nation's critical infrastructure from 
cyber attack?
    Mr. Stenbit. FFRDCs, including the MITRE Corporation, provide the 
Department of Defense (DOD) a unique support capability. They provide a 
depth of specialized research talent that would otherwise not be 
available to DOD. The operational readiness of the Department, and the 
successful execution of the spectrum of its national security missions, 
depend on the reliability of physical infrastructure products and 
services including fuels, transportation, electricity, and water. 
Because of the inextricable interdependencies between information and 
physical infrastructures, FFRDC talent is needed to address physical, 
cyber, and human (to include ``insider''), threats to all Defense-
related critical infrastructures.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
    4. Senator Byrd. Mr. Stenbit, intelligence systems will come under 
your purview as Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence (C\3\I). Measurement and Signature 
Intelligence (MASINT) is one system in which I am very interested. What 
is your view of the importance of MASINT to the U.S. intelligence 
community?
    Mr. Stenbit. Measurement and Signature Intelligence (MASINT) 
continues to be a vitally important component of the U.S. intelligence 
community and has the potential to assist with tracking some of the 
most difficult and challenging intelligence problems facing the United 
States in the 21st century. The design and development of future U.S. 
ballistic missile defensive systems will rely heavily on MASINT derived 
data to complement multi-int data in an all source analysis process. 
MASINT has the capability to help overcome some of the foreign denial 
and deception techniques employed against U.S. collection and to gather 
critical intelligence against hard targets. MASINT systems are unique 
in their capability to collect against key aspects of foreign nuclear, 
chemical, and biological capabilities. Decisions made by our national 
leadership and tactical decisions made by our operating forces will 
rely heavily on data and analyses provided by MASINT and fused with 
other information and data.

    5. Senator Byrd. Mr. Stenbit, what role can MASINT play in 
developing a comprehensive homeland security strategy, as a means of 
protecting the U.S. against terrorism and weapons of mass destruction? 
Is an effective MASINT architecture necessary to defend the Nation 
against such activities?
    Mr. Stenbit. The primary contributions MASINT can make to homeland 
defense and counter terrorism are in the identification and analysis of 
foreign weapon systems, reducing technological surprise, and developing 
U.S. countermeasures. MASINT provides unique insight on State and non-
State actors who are engaged in the development of weapons of mass 
destruction (nuclear, chemical and biological). MASINT-derived analyses 
assess the technological progress of potential adversaries having the 
capability of initiating global crises, and provides timely and 
accurate intelligence to the counter/non-proliferation community, 
national policymakers, and warfighters.
    The development of U.S. national strategies that deal with stopping 
the proliferation of the technologies used in WMD, weapon delivery 
systems (e.g. ballistic missiles), and fully operational WMD rely in 
part on MASINT. Therefore, I support efforts within the intelligence 
community that prioritize and maximize the intelligence resources 
required for current and future MASINT systems, and incorporate them 
into the overall intelligence architecture.

    6. Senator Byrd. Mr. Stenbit, do you believe that additional 
funding resources for MASINT could be used to improve our national 
security?
    Mr. Stenbit. MASINT is a key contributor, along with the other 
intelligence disciplines, in assessing the intent and capabilities of 
potential U.S. adversaries. Over the last decade the demand for MASINT 
data and analysis has significantly increased. This demand is for data 
against geographically dispersed targets, targets more difficult to 
collect against, and data required in near-real time. Furthermore, the 
collection environment is complicated by denial and deception 
techniques. Current funding profiles are capable of sustaining existing 
systems; but, some systems are reaching their end of life, and some 
require replacement with more capability.
    To meet anticipated national and operating forces' requirements 
additional investments would be required to modernize and deploy new 
MASINT capabilities. The intelligence community is thoroughly examining 
MASINT requirements, current system capabilities, system life cycles, 
R&D investments, and is developing strategies to address the 
prioritization of competing requirements. shortfalls, gaps in providing 
certain data, and alternative solutions. The demand for more MASINT 
data and analysis will require a corresponding increase in resources 
for processing and exploitation (analysis).

    7. Senator Byrd. Mr. Stenbit, we have discussed a proposal to 
better manage MASINT data resources. Do you support the concept that 
better coordination of MASINT data resources would be a benefit for our 
national security? Would you consider the establishment of a 
centralized coordination center?
    Mr. Stenbit. The ability to deliver MASINT-derived intelligence in 
a timely user-friendly and usable format to the widest possible 
community of analysts and consumers is something I strongly support. 
The best approach, and what the associated cost estimates are, is a 
topic that the DOD Central MASINT Organization and the Director of DIA 
are currently working. I eagerly await their findings.

    8. Senator Byrd. Mr. Stenbit, biometrics is the use of a person's 
physical traits, such as fingerprints, or patterns of the iris of the 
eyes, or veins in the arm, to provide access to secure computers, 
facilities, or other equipment. What is your view of the importance of 
biometrics to the Department of Defense and to the information 
assurance needs of the Nation?
    Mr. Stenbit. Biometrics has the potential to provide increased 
security to DOD networks through positive identification of users prior 
to network access. In addition to assisting in protecting networks from 
outsiders, biometrics can play an important role in mitigating the 
insider threat through positive identification of individual network 
users in trusted environments. Currently the Department of Defense is 
exploring the use of biometrics and has implemented over 50 ``Quick 
Look'' projects that test the feasibility of biometric devices. These 
``Quick Look'' projects explore the use of biometric devices for 
facility access, shipboard security and, computer access control. One 
of these ``Quick Look'' projects is in the C\3\I Directorate, 
Information Assurance. This quick look is testing the feasibility of 
using an Iris Scanner to allow access to a sensitive area. 
Additionally, the Department has created the Biometric Management 
Office to further the study of biometrics within the department and to 
foster partnerships between Government, industry and academia for the 
future of the biometric program.
                                 ______
                                 
               Questions Submitted by Senator John Warner
    9. Senator Warner. Mr. Stenbit, despite efforts of the Department 
of Defense to establish standards of interoperability for the command 
and control systems essential for joint operations, virtually every 
significant military operation in the last two decades has been plagued 
by communications, intelligence, operations and logistics systems of 
the various services that cannot efficiently interact.
    How do you propose to make substantive progress in this area that 
has, heretofore, proved so elusive to your predecessors?
    Mr. Stenbit. We have learned that standards are necessary but not 
sufficient for achieving interoperability for information. The DOD 
defines information interoperability as the exchange and use of 
information in any form electronically that allows us to operate 
effectively together whether on the warfighting or business sides of 
the department. Information interoperability is one of the critical 
enablers for effective joint, interagency, and multinational 
operations. Joint Vision 2020 describes this operational environment as 
composed of doctrine, organization, materiel, training, leadership, 
personnel, and facilities (DOMTLPF). Further we have learned that 
interoperability must be balanced with information assurance. Both 
interoperability and information assurance are essential enablers to 
network centric warfare, our analogy to the role of the Internet in 
commercial and personal worlds.
    The Department in compliance with Clinger-Cohen Act (CCA) of 1996 
uses the terminology of Information Technology (IT) and National 
Security Systems (NSS) to cover any system which gathers, processes, or 
presents information in any electronic form to include what is 
considered an integral part of weapons or weapon systems. In compliance 
with CCA, the DOD is using integrated information technology 
architectures to describe how we do ``business'', the systems that 
assist in the business process, and the standards that underpin the 
systems. We call this an integrated architecture composed of three 
interrelated views: operational, systems, and technical. These are 
living documents, which will evolve as business practices and 
technology changes. We now have integrated architectures for each of 
the combatant commanders (i.e. CINCs), as well as many of the 
functional or mission areas (e.g. Airborne SIGINT, Health Affairs) of 
the department. To provide the overarching context for all of these 
integrated architectural efforts and as the initial effort toward an 
organizing construct leading to network centric operations, I as the 
DOD Chief Information Officer approved on August the first in a series 
a Joint Task Force Global Information Grid integrated architecture. The 
standards piece of integrated architectures (i.e. the Technical View) 
uses the Joint Technical Architecture, the codified listing IT and NSS 
standards that apply across the DOD now beginning the development of 
Version 5.0, to assure a common base. The JTA contains approximately 85 
percent non-government standards in conformance with congressional 
direction to use voluntary consensus-based standards. Interestingly, 
the DOD is recognized as setting the best practices for the development 
and use of integrated architectures and related documents.
    As the DOD Chief Information Officer, using the authorities 
provided by CCA and Title 10, I am providing the leadership in 
revamping the interoperability process of the DOD, as well as how 
interoperability is handled within our requirement generation, 
acquisition, and budgetary processes. I am also using my Title 10 
authorities to develop a DOD strategy to synchronize and rationalize 
the department's involvement in the development of IT and NSS 
standards. Notwithstanding my statutory authorities, the pragmatics of 
achieving the network centric interoperability (and information 
assurance) underpinning Joint Vision 2020 requires the teaming of 
USD(AT&L), VCJCS, CINC Joint Forces Command, the DOD Comptroller, and 
the Director of Operational Test & Evaluation. Lastly, we are 
continuing to make other improvements such as a small fund to be used 
to make the down payment on interoperability (to include information 
assurance) DOTMLPF remedy sets for field capabilities as well as 
improved facilities and processes for verifying interoperability.
    I believe that through the use of teamed leadership and integrated 
architectures, as well as changes in organization, funding, and 
verification, we will make progress on interoperability that has proven 
so elusive to my predecessors.

    10. Senator Warner. Mr. Stenbit, communications systems are 
critical to the men and women that serve in our Armed Forces. The Joint 
Staff has mandated specific telecommunications certification standards 
and I understand that tough standards have been part of military 
procurement contracts for telecommunications equipment as well. It is 
important that we maintain the highest standards.
    What will you do to ensure these tough telecommunications 
certification requirements are implemented on all manufacturers on a 
uniform basis?
    Mr. Stenbit. We take very seriously our responsibility to ensure 
the Department acquires only telecommunications equipment and systems 
that meet our requirements for interoperability and security. Our 
certification process guards us against acquisitions that might 
jeopardize the vital ability of our forces to share information 
seamlessly and securely. Our Joint Interoperability Test Command (JITC) 
implements that process in testing and certifying system performance. 
The process includes utilizing common test requirements for all testing 
such as the DOD's Generic Switching Center Requirements (GSCR) and 
commercial standards such as the Bellcore Local Access and Transport 
Area (LATA) Switching System Generic Requirements (LSSGR). These 
specifications are typically included in the governments Request for 
Proposal, so the prospective vendors know up front what we expect.
    Results of the JITC testing and certification are provided to 
vendors and acquisition activities to allow corrections to be made in 
system performance prior to acquisition, and to enable prudent 
acquisition decisions. Those same results are used by the Defense 
Information Systems Agency in granting approvals for equipment and 
systems to interconnect with our global networks. Our standards are 
applied equally to all vendors and commands, and our testing process is 
open. Vendors are made aware that they are welcome on-site throughout 
the testing process. This not only ensures openness of the process, but 
it also enables a far freer exchange of technical information so 
necessary in the testing of today's complex telecommunications systems. 
I intend to vigorously enforce this policy of openness.
    As a final step to ensure fairness and objectivity, we have 
instituted a process where any test certification issue that can not be 
resolved by JITC is forwarded to an interoperability test panel that is 
chaired by the Joint Staff. This independent group reviews test results 
that are used to make final or interim fielding decisions.

    11. Senator Warner. Mr. Stenbit, how will you ensure vendors are 
held accountable for meeting these vigorous procurement requirements?
    Mr. Stenbit. We currently utilize a standard process for the test 
and certification of switches to be installed in the DOD system. The 
test and certification process is documented in DOD policy Directives 
and Instructions for all acquisition organizations to use in the 
execution of the procurement and test process. As a further step to 
ensure adherence to the test requirements, many of the recent contracts 
stipulated that switches had to pass these standard interoperability 
tests before the government paid the full contract amount for the 
switches. By tying testing and certification to full payment the DOD 
can ensure that these vital requirements are met. We will not 
compromise our standards of interoperability or security. The risks are 
too great to our fighting men and women. We will continue to report our 
certification testing results openly and honestly, and our reports will 
continue to be available to all acquisition activities for their use in 
determining what systems do and don't meet Department standards.

    12. Senator Warner. Mr. Stenbit, at this point in the process, what 
role do you anticipate playing in the QDR?
    Mr. Stenbit. Although arriving towards the end of the review, I am 
fully engaged in the discussions. Space and information superiority are 
key contributors towards the Department's transformation efforts. My 
main role will be to lead the implementation of the C\3\I action items 
resulting from the QDR. I will keep a close eye on how we lay the 
transformation base and then support the transformation efforts to 
achieve information dominance.

    13. Senator Warner. Mr. Stenbit, are you confident that the 
intelligence community has had the opportunity to make appropriate 
contributions to the QDR process?
    Mr. Stenbit. Yes. From the start, we invited the DCI's staff to 
participate in the Space, Information and Intelligence (SII) Integrated 
Project Team (IPT) efforts. They have participated and helped shape the 
SII input into the QDR; we have briefed members of the Community 
Management Staff, and have also stayed abreast of the DCI's Quadrennial 
Intelligence Community Review and NSPD 5 efforts.

    14. Senator Warner. Mr. Stenbit, the U.S. Commission on Space 
(Rumsfeld Commission) recommended the establishment of an Under 
Secretary of Defense for Space and Intelligence. Shortly after taking 
office, Secretary Rumsfeld indicated he would implement most of the 
recommendations of the Space Commission, but declined to elevate your 
prospective position to an Under Secretary, indicating he wanted to 
evaluate the functions of ASD(C\3\I).
    In your view, are your responsibilities in military space policy 
clear?
    Mr. Stenbit. Yes, my space policy responsibilities, pending 
completion of the review of the ASD(C\3\I)'s responsibilities and 
functions, are currently to develop, coordinate, and oversee the 
implementation of policies regarding space and space-related activities 
and, in coordination with the Under Secretary of Defense for Policy, 
ensure that space policy decisions are closely integrated with overall 
national security policy considerations.

    15. Senator Warner. Mr. Stenbit, the U.S. Commission on Space 
(Rumsfeld Commission) recommended the establishment of an Under 
Secretary of Defense for Space and Intelligence. Shortly after taking 
office, Secretary Rumsfeld indicated he would implement most of the 
recommendations of the Space Commission, but declined to elevate your 
prospective position to an Under Secretary, indicated he wanted to 
evaluate the functions of ASD, C\3\I.
    What is the status of this review of the functions of ASD, C\3\I, 
and when do you anticipate it will be completed?
    Mr. Stenbit. The review is ongoing. With my confirmation, I am now 
directly engaged in the process and expect to bring the review to a 
conclusion in the near future.

    16. Senator Warner. Mr. Stenbit, there has been much discussion of 
the potential benefits of augmenting our space reconnaissance efforts 
with commercially available imagery. In theory, use of these commercial 
assets would free up national systems for the most important missions. 
To date, however, the investment in commercial imagery has remained 
relatively modest, in relation to the overall cost of space 
reconnaissance.
    What role do you see for commercial imagery in our overall space 
reconnaissance effort? Has the investment in commercial imagery, to 
date, been satisfactory?
    Mr. Stenbit. The National Commission for the Review of the National 
Reconnaissance Office, the Independent Commission on the National 
Imagery and Mapping Agency, and the Commission to Assess United States 
National Security Space Management and Organization recommended that 
the U.S. Government take a fresh look at its strategy for using the 
U.S. commercial remote sensing industry to satisfy some of its 
geospatial and imagery information requirements. The Secretary of 
Defense and the Director of Central Intelligence agree that an 
effective U.S. Government commercial imagery strategy is necessary and 
have initiated a thorough review of the strategy being developed by the 
Directors of the National Reconnaissance Office and the National 
Imagery and Mapping Agency. This review will be conducted with the 
advice of an outside panel and will include the government's future use 
of commercial imagery, how we acquire it, and how we should incorporate 
it into our intelligence products. The funding required to implement 
the strategy is part of this assessment.

    17. Senator Warner. Mr. Stenbit, despite efforts of the Department 
of Defense to establish standards of interoperability for the command 
and control systems essential for joint operations, virtually every 
significant military operation in the last two decades has been plagued 
by communications, intelligence, operations, and logistics systems of 
the various services that cannot efficiently interact. 
    How do you propose to make substantive progress in this area that 
has, heretofore, proved to elusive to your predecessors?
    Mr. Stenbit. We have learned that standards are necessary but not 
sufficient for achieving interoperability for information. The DOD 
defines information interoperability as the exchange and use of 
information in any form electronically that allows us to operate 
effectively together whether on the warfighting or business sides of 
the department. Information interoperability is one of the critical 
enablers for effective joint, interagency, and multinational 
operations. Joint Vision 2020 describes this operational environment as 
composed of doctrine, organization, materiel, training, leadership, 
personnel, and facilities (DOTMLPF). Further we have learned that 
interoperability must be balanced with information assurance. Both 
interoperability and information assurance are essential enablers to 
network centric warfare, our analogy to the role of the Internet in 
commercial and personal worlds.
    The Department in compliance with Clinger Cohen Act (CCA) of 1996 
uses the terminology of Information Technology (IT) and National 
Security Systems (NSS) to cover any system which gathers, processes, or 
presents information in any electronic form to include what is 
considered an integral part of weapons or weapon systems. In compliance 
with CCA, the DOD is using integrated information technology 
architectures to describe how we do ``business'', the systems that 
assist in the business process, and the standards that underpin the 
systems. We call this an integrated architecture composed of three 
interrelated views: operational, systems, and technical. These are 
living documents, which will evolve as business practices and 
technology changes. We now have integrated architectures for each of 
the combatant commander (i.e. CINCs), as well as many of the functional 
or mission areas (e.g. Airborne SIGINT, Health Affairs) of the 
department. To provide the overarching context for all of these 
integrated architectural efforts and as the initial effort towards an 
organizing construct leading to network centric operations, I as the 
DOD Chief Information Officer approved on 1 August the first in a 
series a Joint Task Force Global Information Grid integrated 
architecture. The standards piece of integrated architectures (i.e. the 
Technical View) uses the Joint Technical Architecture, the codified 
listing IT and NSS standards that apply across the DOD now beginning 
the development of Version 5.0, to assure a common base. The JTA 
contains approximately 85 percent non-government standards in 
conformance with congressional direction to use voluntary consensus 
based standards. Interestingly, the DOD is recognized as setting the 
best practices for the development and use of integrated architectures 
and related documents.
    As the DOD Chief Information officer, using the authorities 
provided by CCA and Title 10, I am providing the leadership in 
revamping the interoperability process of the DOD, as well as how 
interoperability is handled within our requirement generation, 
acquisition, and budgetary processes. I am also using my Title 10 
authorities to develop a DOD strategy to synchronize and rationalize 
the department's involvement in the development of IT and NSS 
standards. Notwithstanding my statutory authorities, the pragmatics of 
achieving the network centric interoperability (and information 
assurance) underpinning Joint Vision 2020 requires the teaming of 
USD(AT&L), VCJCS, CINC Joint Forces Command, the DOD Comptroller, and 
the Director of Operational Test & Evaluation. Lastly, we are 
continuing to make other improvements such as a small fund to be used 
to make the down payment on interoperability (to include information 
assurance) DOTMLPF remedy sets for field capabilities as well as 
improved facilities and processes for verifying interoperability.'
    I believe that through the use of teamed leadership and integrated 
architectures, as well as changes in organization, funding, and 
verification, we will make progress on interoperability that has proven 
so elusive to my predecessors.

    18. Senator Warner. Mr. Stenbit, what actions will you take to 
examine the defense agencies under your jurisdiction to ensure that 
they are providing the most effective support in the most efficient 
manner?
    Mr. Stenbit. The oversight responsibility for defense agencies and 
activities is a primary responsibility for me. I intend to conduct 
regular defense agency reviews to monitor progress in order to ensure 
the most effective use of funding and resources.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
    19. Senator Allard. Mr. Stenbit, the ``Tail to Tooth Commission'' 
Report, a 3-year study led by Senator Rudman, recommended that 
outsourcing DOD's long haul communication infrastructure could result 
in $30 billion in savings, while satisfying requirements for security 
and interoperability.
    a. What is your position on the commission's recommendations?
    b. How would you propose going about achieving these vitally 
important savings?
    Mr. Stenbit. The $30 billion figure in the report was the dollar 
figure that the commission ascribed to the total cost of intelligence, 
space, and other command and control programs per year. I am unable to 
find a $30 billion figure related to outsourcing long haul 
communication infrastructure. DISA, as our primary long haul provider, 
spends less than $1 billion per year on this. Even if we included 
intelligence assets, that number does not seem feasible.
    With regard to the assumption that DISA is replicating what already 
exists in industry, this is definitely not the case. Commercial 
providers have been and will be employed to meet the vast majority of 
DOD wide area network communications needs. It is how they are employed 
to provide DOD secure and interoperable solutions of best value that 
matters. The context in which decisions should be made is a mission 
context that ensures our forces can communicate with each other in a 
secure way and reach back from deployed locations, where commercial 
infrastructure is unavailable, to the sustaining base that supports 
them. Further, this enterprise view of our global requirements, 
infrastructure, and systems is also the most economical way to satisfy 
requirements. Without this view, we will continue the wasteful cycle of 
stovepipe individual organizational implementations followed by a wave 
of mandated consolidations. This cycle is a recipe for high total 
costs, the inability of forces to communicate, and gaps and lapses in 
security.
    The right way to partner with industry is to leverage industry to 
the maximum extent possible but within the context of the military 
mission and the enterprise view, as depicted in our Global Information 
Grid architecture. The Defense Information Systems Network (DISN) is a 
good example of this. The DISN supports military missions and our 
deployed forces worldwide. It is designed and operated with the 
assumption that communications and the computing connected to 
communications will be a high priority target, both physically and 
electronically, of any adversary. Let me assure you that even in times 
of peace, this is the case. Therefore, we engineer the DISN 
specifically for security and robustness and require that our vendors 
provide critical military features. These relate to such areas as 
personnel and physical security, mix of routes and media diversity, and 
precedence and preemption capabilities. The recent performance problems 
experienced by business customers with one major vendor as a result of 
the Baltimore tunnel fire points to the types of problems you can have 
when you don't engineer with these types of considerations in mind. It 
is not whether the DISN is outsourced, because over 90 percent of its 
costs are for commercial products and services. It is how it is 
outsourced that matters.
    To have the reliability and trust needed when lives and national 
security are at stake, DOD provides an augmentation of capabilities 
above what is normal commercial practice. These capabilities include 
robust NSA-approved encryption and an active network and computer 
defense capability through our network operations and security centers, 
with their associated sensor and reporting systems. They also include 
computer emergency response teams and mandatory accreditation and 
certification procedures for the networks and systems attached to them. 
Further, the DISN can extend voice, data and video services 
communications to deployed forces rapidly through the tie-in to 
military satellite capabilities from various strategic locations. If 
you are on the DISN, you have guaranteed interoperability. The 
capabilities of the DISN stand in fairly stark contrast to buying 
communications services from a general service, where security and 
configuration management practices are unknown, the customer base could 
consist of active adversaries, and the ability to locate and respond to 
information attack are limited, or do not have extensions to remote 
locations where our forces are in harms way. The lessons of the past 
are replete with examples of mission failure and loss of life where we 
did not attend to these concerns. The mix of employing industry 
strengths, while never forgetting our military mission, is the right 
way ahead.
    Information technology is strategic to almost all businesses and 
modern organizations. The loss of in-house expertise, the turnover of 
infrastructure without the ability to recapitalize, the failure to 
adequately define baselines or requirements, and the absence of 
expertise in outsourcing negotiations can and has frequently spelled 
real trouble. This is especially difficult when de facto private 
monopolies emerge without the customer having a viable exit strategy. 
Several major corporations are now engaged in lawsuits with outsourcing 
vendors as a result of these very issues. Much research on outsourcing 
promotes the use of selective outsourcing, with the ability to maintain 
competitive suppliers, vice total outsourcing as a much lower risk and 
higher payoff strategy. Indeed, that has been our experience. For 
example, by a combination of consolidation, modernization, and 
selective outsourcing, DOD has been able to reduce its mainframe 
computer processing costs from over one billion dollars annually to 
$331M, while successfully completing Y2K and accomplishing a 
dramatically increased processing workload. Further, we have integrated 
the computing with our networks and provided robust security for both.
    We are going to scrub every process we have, employ technology to 
positive advantage, and use the competitive marketplace effectively to 
maintain a mission edge and reduce cost.

    20. Senator Allard. Mr. Stenbit, on DOD's long haul policy, has the 
Secretary's Strategic Review reached a conclusion on DOD policy to 
contract out for such services versus DISA providing the DISN Enhanced 
Program (DEP) network and competing against industry?
    Mr. Stenbit. The revised DOD network policy, which resulted from a 
broad review of alternatives for the Global Information Grid (GIG) 
supports increased use of commercial sources for Defense networking. In 
the case of DISN, commercial services and capabilities, such as DEP, 
have been integrated to provide effective and assured wide area 
networking. In particular the DEP provides a degree of mandated diverse 
routing, and accommodates the requirements for security, the visibility 
of it to the Computer Network Operations Joint Task Force, and the 
economics of scale provided to all DOD by bundling requirements. The 
DEP is part of the Defense Information Systems Network (DISN), and the 
benchmarking studies conducted by a third party last year show DISN 
costs to be in general below pure commercial service rates. The DEP is 
a good example of DOD partnering with industry to meet military needs 
while obtaining significant economies. It is able to handle classified 
and unclassified voice, data, and video traffic consistent with 
critical national security missions, while at the same time exploiting 
best business practices.

    21. Senator Allard. Mr. Stenbit, many experts have stated that 
DISA's mission should be ``standards and policy.'' DISA, on the other 
hand, has the clear intention to become a ``telephone company,'' 
including voiding existing contracts with domestic carriers and 
providing the service with in-house resources. What is your position?
    Mr. Stenbit. DISA has a significant and critical mission within DOD 
that goes well beyond standards and policy. The Defense Information 
Systems Agency (DISA) is the Combat Support Agency responsible for 
planning, developing, and operating key Joint command, control, 
communications, and computing (C\4\) systems that serve the needs of 
the National Command Authorities. the Services, CINCs, Agencies, and 
deployed forces under all conditions of peace and war. DISA enables 
information and decision superiority by providing and operating high 
quality information-based products and services that form the core of 
DOD's Global Information Grid (GIG). No other component or Agency has 
this joint mission. DISA's contributions include:
    (1) Planning, building, and operating the Global Command and 
Control System, the Defense Information System Network, the Defense 
Message System, and the Global Combat Support System. DISA also 
operates the six major data processing centers for the combat support 
functions within the department. These systems and capabilities 
constitute the core DOD enterprise level systems for C\4\.
    (2) Providing the DOD capstone Computer Emergency Response 
capability and leadership for many DOD information assurance 
activities. DISA's Vice Director is dual-hatted as the Commander of the 
Computer Network Operations Joint Task Force, a SPACECOM activity.
    (3) Managing the end-to-end integration of components of the GIG 
and providing technical support to the compatibility, integration, and 
interoperability activities of the entire GIG (to do this, DISA 
provides direct hands-on support in the areas of engineering, 
standards, interoperability testing and certification, spectrum 
management, planning, modeling and simulation).
    (4) Providing direct operational support to the Joint Staff, CINCs, 
and deployed forces in peace and in all crisis, conflict, humanitarian, 
and wartime roles through DISA's worldwide field commands and offices 
and flyaway assets.
    (5) Providing key IT products and services in support of the 
electronic commerce, business and public affairs activities of the 
department and the sharing of scientific and technical information 
throughout the department. 
    (6) Providing operational support to the National Command 
Authority, including White House Communications and National Security/
Emergency Preparedness missions.
    It is not in DISA's charter to act as a phone company. In fact GSA 
commercial service offerings or other commercial service providers meet 
the majority of the Departments long distance and local telephone 
requirements. For example, for long distance telephone service the DOD 
is GSA's largest customer on the FTS 2001 contracts (with MCI Worldcom 
and Sprint) with over $90 million of the DOD budget spent annually on 
the FTS contracts alone. In addition, last year the DOD moved from an 
Army contract to GSA's WITS commercial services (with Verizon) to meet 
the department's local telephone service for the national capitol 
region. Again the DOD is the largest customer on this contract with 
approximately 150,000 DOD customers. While most of the DOD's 
administrative telephone services is provided from commercial carriers, 
DISA's focus is on satisfying command and control and critical combat 
support telecommunications requirements for voice, data, and video 
capabilities and for integrating and extending these services to 
deployed forces.
    In summary, DISA is not a telephone company although it does have a 
mission to provide secure, interoperable. and global communications 
from the deployed force back to the sustaining base. It uses many 
commercial providers, while adding military value added features that 
relate to security, robustness, and global extension to do this. DISA 
was especially active and effective at getting communications in place 
to support the Kosovo operations. Within the US, DISA uses domestic 
providers but obtains the economics of scale provided by bundling DOD 
requirements. It is not building networks as a competitor to industry, 
but it is managing the conditions under which DOD obtains 
communications support and ensuring that the sum of capabilities 
provide a joint coherent mission oriented capability.

    22. Senator Allard. Mr. Stenbit, do you plan to revisit the prior 
administration's OSD/JCS DISN long haul policy?
    Mr. Stenbit. Critical policies impacting the evolution and 
management of Information Technology, including the long haul policies, 
have been revamped under the GIG initiative. The genesis of our 
policies were the types of interoperability and communication problems 
that occurred when there was not effective joint communications and 
command and control. These types of problems have reappeared whenever 
we did not pay attention to the integration of our forces or their 
ability to reach back for support: Cuban Missile Crisis, Pueblo, 
Grenada, Desert Shield and Desert Storm, and in the Balkans.
    The underlying assumption with the current long haul policy is that 
an enterprise-wide telecommunication network to meet the majority of 
the DOD's military requirements is the best approach. At the level of 
the transport layer, I intend to further review and adjust policy as 
necessary to ensure a cost effective basis for Wide and Metropolitan 
Area Networks. This assumption is consistent with provisions of the 
Clinger-Cohen Act, and the GIG architecture. While the details of how 
the policy is implemented may be adjusted, the basic premise is to have 
an integrated and secure network across the DOD.

    23. Senator Allard. Mr. Stenbit, there are industry claims that 
DISA is competing against an NMCI commercial provider, possibly in 
violation of A-76, which prohibits the government from competing 
against the private sector. Will you investigate those allegations and 
report back to the committee in a timely manner?
    Mr. Stenbit. I will of course investigate any allegations. However, 
as I have pointed out, from the information I have, it is not a 
question of in-house versus commercial provider but a question of how 
industry is partnered with to provide service, the degree to which the 
military mission is recognized in the acquisition, particularly with 
regard to security, and the degree to which DOD achieves economies of 
scale and essential levels of interoperability and how we take best 
advantage of low density/high demand assets, particularly overseas.
    A key factor in this discussion is the unique requirements for 
security and robustness that the military must have to meet the needs 
of the warfighter. These requirements were based on experience and were 
validated by the Joint Staff. The DISN is not in competition with 
industry but works with industry to meet these requirements.

    24. Senator Allard. Mr. Stenbit, what is your position on the prior 
administration's NMCI Memorandum of Agreement among OSD, USN, and DISA 
regarding NMCI? Does it make good business sense for DISA to try to 
replicate what industry has already developed, given DOD's limited 
financial and information technology resources?
    Mr. Stenbit. I support both the letter and the spirit of the NMCI 
Memorandum of Agreement (MOA).
    Under its terms, DISA has first right of refusal to provide wide-
area telecommunications services for the NMCI. If DISA cannot provide 
the service then the USN may pursue those services through another 
source. It is my understanding that in crafting the MOA, the parties 
sought to ensure that DOD enterprise interoperability, security, and 
economy are maintained, and that the USN would receive the best service 
possible.
    As discussed in previous answers, DISN does not replicate what 
industry already offers, because no commercially available service 
provides the interoperability and security services available under 
DISN. DISN does depend heavily on industry components and services to 
develop and provide DISN offerings. DISA has contracted with firms who 
specialize in wide-area telecommunications services and has added 
services and procedures that promote security and interoperability for 
the warfighter. DISA's partnership with industry has resulted in an 
environment where joint systems are interoperable, with known and 
rigorous security, global extension, diverse routing, and dynamically 
shared bandwidth. The best approach is to develop a strategy that best 
fits the needs of the deployed force, rather than obtaining and 
evolving them one function or one uniformed service at a time.
                                 ______
                                 
    [The nomination reference of John P. Stenbit follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John P. Stenbit of Virginia, to be an Assistant Secretary of 
Defense, vice Arthur L. Money.
                                 ______
                                 
    [The biographical sketch of John P. Stenbit, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                 Biographical Sketch of John P. Stenbit

    John P. Stenbit has had a long and distinguished career 
with TRW, Inc., first joining them in 1968. In January 2000, he 
was named Executive Vice President, Special Assignment, for TRW 
Aerospace and Information Systems. Prior to that position, he 
had served since early 1998 as Executive Vice President and 
General Manager of TRW's telecommunications business, where he 
helped identify a number of significant opportunities for TRW 
in the burgeoning commercial telecommunications market.
    In 1994, Mr. Stenbit was named Executive Vice President and 
General Manager of TRW Systems Integration Group, which he had 
led since 1990 as Vice President and General Manager. Under his 
leadership, the group broadened its business base from 
primarily defense to include industry contractors, 
international customers, and government agencies. The group 
performed systems engineering services and systems integration 
and developed and installed systems for strategic and tactical 
command and control, information processing, and security. Mr. 
Stenbit was Vice President and General Manager of TRW Command 
Support Division from 1984 to 1990. Previously, he was Director 
of Requirements and Group Development for TRW Defense Systems 
Group.
    Mr. Stenbit was with the Department of Defense for 4 years, 
2 of which were spent as Principal Deputy Director of 
Telecommunications and Command and Control Systems. Earlier, he 
served as Staff Specialist for Worldwide Military Command and 
Control Systems in the Office of the Secretary of Defense.
    Mr. Stenbit joined TRW in 1968 and was responsible for the 
planning and analysis of advanced satellite surveillance 
systems. Before joining the company, he was with the Aerospace 
Corporation, where he worked on command and control systems for 
missiles and satellites and on satellite data compression and 
pattern recognition. During this time and under an Aerospace 
Corporation fellowship, he studied and taught for 2 years as a 
Fulbright Fellow at the Technische Hogeschool, Eindhoven, 
Netherlands, concentrating on coding theory and data 
compression.
    Mr. Stenbit is a member of the Board of Directors for AETC, 
an analysis company. In 1999 he was inducted in the National 
Academy of Engineering. Previously, Mr. Stenbit served as 
chairman of the Science and Technology Advisory Panel to the 
director of Central Intelligence and was a member of the 
Science Advisory Group to the directors of Naval Intelligence 
and the Defense Communications Agency. He also chaired the 
Research, Engineering and Development Advisory Committee for 
the administrator of the Federal Aviation Administration. Mr. 
Stenbit received a Bachelor's and a Master's degree in 
Electrical Engineering from the California Institute of 
Technology. He is a member of Tau Beta Pi, the engineering 
honorary society.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by John P. 
Stenbit in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Paul Stenbit; Nickname Pre 1970: Skip.

    2. Position to which nominated:
    ASD(C\3\I).

    3. Date of nomination:
    July 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 1, 1940; Oakland, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Albertine (Heederik) Stenbit.

    7. Names and ages of children:
    Elisabeth Johnson, 33; Dr. Antine Stenbit, 31.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Palo Alto High School, Palo Alto, CA, 1954-57, Graduated 6/57.
    California Institute of Technology, Pasadena, CA, 1957-62, BS, 6/
61; MS, 6/62.
    Techniscite Hoge School, Eindhoven, Netherlands, 1962-63, 1965-67, 
No Degree.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    TRW, Inc., Fairfax, VA, 1977-April 30, 2001; Exec/VP General 
Manager, Systems Integration Group, 1990-98; Exec/VP 
Telecommunications, 1998-99; Exec/VP Special Assignments, 1999-2001; 
Retired May 1, 2001.
    AETC, Inc. La Jolla, CA, 1999-Present, Member of Board ofDirectors 
and Consultant.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Civil Servant in OSD, 1973-77.
    Chair, Science & Technology Advisory Panel to DCI.
    Chair, Research & Development Advisory Panel to FAA Administrator.
    Defense Science Board.
    National Research Council
    Scientific Advisory Group, Director, Naval Intelligence.
    Scientific Advisory Group, Director, Defense Communications Agency.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member, Board of Directors, AETC, Inc.
    Limited Partner, Vast Oaks Properties.
    Active Partner, Wayfarers Investment Club.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Board of Directors, Arts Council of Fairfax County.
    Member, National Academy of Engineering.
    Member, Naval Studies Board.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Representative Tom Davis, $100.
    TRW PAC, $150.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Fulbright Fellow.
    Aerospace Corp. Fellow.
    Member, National Academy of Engineering, TAU BETA PI.
    Secretary of Defense Award for Outstanding Public Service.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 John Paul Stenbit.
    This 13th day of July, 2001.

    [The nomination of John P. Stenbit was reported to the 
Senate by Chairman Levin on August 2, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2001.]
                              ----------                              

    [Prepared questions submitted to Dr. Ronald M. Sega by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   July 27, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Yours truly,
                                   Ronald M. Sega. 
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. If confirmed, I will fully support the intent of the 
reforms and advocate policies that will facilitate accomplishment of 
joint operations, streamline acquisition management and oversight, and 
enhance the Department's ability to respond to our 21st century 
national security challenges.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I think the Department has done a creditable job in 
implementing defense reforms. However, without periodic Department 
policy reviews, these reforms can lose their effectiveness and, if 
confirmed, I will conduct such a review in my area to ensure we are in 
keeping with today's environment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I agree with Mr. Aldridge that the most important aspects 
of the Goldwater-Nichols Department of Defense Reorganization Act is 
strengthening civilian control; improving military advice; placing a 
clear responsibility on the combatant commanders for the accomplishment 
of their missions; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I agree with the goals.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate?
    Answer. If confirmed as Director of Defense Research and 
Engineering (DDR&E), I will work with the Under Secretary of Defense 
(Acquisition, Technology and Logistics) and other senior DOD leaders to 
review the extent to which the reforms have been implemented and the 
extent to which they have achieved their stated goals. As Secretary 
Rumsfeld has noted, we would consult with Congress on any changes that 
might be appropriate.
    Question. If so, what areas do you believe it might be appropriate 
to address in these proposals?
    Answer. It would be premature to offer any thoughts on the question 
at this time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Director of Defense Research and Engineering?
    Answer. If confirmed, I understand my duties and functions to 
include those stated in DOD 5134.3 issued on August 31, 1994, to be 
``the principal staff assistant and advisor to the Under Secretary of 
Defense for Acquisition and Technology (USD(AT&L)) for DOD scientific 
and technical matters, basic and applied research, and advanced 
technology development.'' I would report directly to the USD(AT&L), 
with the responsibilities like a chief technology officer for the 
Department to focus on developing capabilities for the warfighter. I 
would be working with the Director, Ballistic Missile Defense Office 
(BMDO) and the Assistant to the Secretary of Defense for Nuclear, 
Chemical, & Biological (ATSD(NCB)), who report to the USD(AT&L) as well 
as organizations outside of USD(AT&L), such as Assistant Secretary of 
Defense for Command, Control, Communication, and Intelligence 
(ASD(C\3\I)), to provide support in matters related to technology. I 
also understand that, if confirmed, the results of ongoing reviews may 
require adjustments in the DDR&E responsibilities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, I will bring a background and experience in 
research, technology and program management, military and civil air and 
space operations, and strategy planning from roles as a Professor, 
Laboratory Technical Director, Pilot, Dean of a College of Engineering 
and Applied Science, Astronaut and Military Officer to the position of 
the DDR&E. My background includes basic and applied research, and 
advanced technology development, working with the Army, Navy, Air 
Force, Defense Advanced Research Projects Agency (DARPA), Defense 
Nuclear Agency (DNA), and industry. Management and leadership 
experience is found in several organizations with activities spanning 
technical system integration to setting strategic goals. I have also 
been an operator of systems from line aircraft and spacecraft to 
experimental vehicles. Additional details of my experience with the 
University of Colorado, University of Houston, Frank J. Seiler Research 
Laboratory, NASA, U.S. Air Force and the U.S. Air Force Reserves are in 
the biography provided to the Senate Armed Services Committee.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Director of Defense 
Research and Engineering?
    Answer. If confirmed, I need to review and refine the strategic 
direction of the Department's S&T plan to ensure the Department seeks 
innovative solutions. To do this, I would develop a strategic plan by 
first reviewing warfighter needs, and then assessing the capability of 
the Department's S&T plan to meet these needs. From there, I would have 
to align the technical programs to best meet the areas not being 
addressed. Finally, I would have to set priorities with clear goals and 
objectives to maximize the output of the S&T program. I plan to listen 
to subject matter experts, people in the field, warfighters, and 
consistently communicate with the Military Departments, Joint Staff, 
and Congress. Of course, quality people to carry out the mission are 
our most important asset and I will, if confirmed, work to sustain and 
hire good people to build a great team.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense will assign to you? Unlike 
some of your predecessors, do you expect to have regular meetings with 
the Secretary of Defense on issues such the level of S&T funding, 
missile defense technology, defense industrial base, and export 
controls?
    Answer. In my meeting with Secretary Rumsfeld, it was clear that he 
supported a strong S&T program. If confirmed, I understand that I would 
normally accompany or represent the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)), Mr. Pete Aldridge, 
in meetings with the Secretary on matters relating to technology.
    Question. If confirmed, how will you work with the following:
    The Under Secretaries of Defense
    Answer. If confirmed, one of the Under Secretaries of Defense, Mr. 
Aldridge, would be my reporting official, and I would support him to 
the best of my ability. With respect to the three remaining Under 
Secretaries of Defense, I will work with Mr. Aldridge to gain their 
support for all S&T initiatives and policies.
    Question. The Assistant Secretaries of Defense
    Answer. If confirmed, I will work to gain their support for all S&T 
initiatives and policies Mr. Aldridge and I are seeking to implement 
through personal contact and routine staffing coordination.
    Question. The Deputy Under Secretary of Defense for Science and 
Technology
    Answer. If confirmed, the Deputy Under Secretary of Defense for 
Science and Technology will work for me and be my principal deputy.
    Question. The Service and Agency officials responsible for science 
and technology funding and program management
    Answer. If confirmed, I will work most closely with these high 
level DOD officials. I am aware of a formal group called the Defense 
Science and Technology Advisory Group (DSTAG) that meets regularly. If 
confirmed, I intend to continue to hold DSTAG meetings on a regular 
basis.
    Question. The Intelligence Community
    Answer. If confirmed, I intend to work closely with the Assistant 
Secretary of Defense for C\3\I concerning the role the DOD S&T program 
can play in supporting the intelligence and space community, as well as 
to gain insight and leverage other intelligence agency technology 
development programs.
    Question. The Joint Chiefs of Staff
    Answer. The Joint Chiefs of Staff (JCS) represents the warfighting 
community, which is the customer of the Department's S&T program. If 
confirmed, I will foster close formal and informal communication with 
the JCS to understand warfighter requirements and priorities. For 
example, if confirmed, I would work with the Deputy Director for 
Resources and Requirements, Joint Staff, (J-8) as a member of the 
Defense Science and Technology Advisory Group (DSTAG).
    Question. The regional combatant CINCs
    Answer. If confirmed, I will strive to understand the CINCs 
requirements both formally, through interface with the Joint Chiefs of 
Staff, and informally, through the CINCs S&T representatives.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Director of Defense Research and Engineering?
    Answer. If confirmed, I see that there are many challenges and 
these challenges will run the full spectrum of my responsibilities. 
These challenges are consistent with challenges which drive the goals 
of the USD(AT&L). These USD(AT&L) goals are:

        <bullet> Achieve Credibility and Efficiency in the Acquisition 
        and Logistics Support Process;
        <bullet> Revitalize the Quality and Morale of the Acquisition 
        Workforce;
        <bullet> Improve the Health of the Defense Industrial Base;
        <bullet> Rationalize the Weapon Systems and Infrastructure With 
        the New Defense Strategy; and
        <bullet> Initiate High Leverage Technologies to Create the 
        Weapon Systems and Strategies of the Future.

    I believe that the challenges facing the DDR&E are largely the 
same. The first is to achieve credibility and efficiency of the 
technology development process, leading to efficient technology 
transition. The second is to retain and recruit high quality scientists 
and engineers. Third is continue to foster partnerships, both within 
and outside of government. Finally, consistent with Mr. Aldridge's 
fifth goal, the DDR&E will be firmly involved in developing high 
leverage technologies to create weapons systems of the future. To 
accomplish this last goal, if confirmed, I will need to address budget 
stability for DOD science and technology, and maintain DARPA at the 
leading edge of technology.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I intend to develop a plan to address the 
challenges by setting specific S&T related goals and objectives 
responding to each USD(AT&L) goals as briefly outlined in the previous 
answer.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Director of Defense Research 
and Engineering?
    Answer. I consider people, budget, and technical direction to be 
the most serious problems to address in performing the functions of the 
DDR&E. Additionally, I believe it is very important to align the 
technology program with the strategic goals of this Department, the 
goals of the USD(AT&L), and if confirmed, I would intend to establish 
goals for DDR&E. The DDR&E challenges are largely the same as the 
USD(AT&L), so the goals should be very consistent.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Similar to my answer above, if confirmed, I would base a 
management action on objectives and metrics derived from the USD(AT&L) 
goals. These objectives would also reflect the Department's S&T 
challenges. If confirmed, I will begin working on these upon my 
assumption of duties. Without fully understanding the magnitude of the 
task, it is too early to set any time lines.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Director of Defense 
Research and Engineering?
    Answer. If confirmed, the broad priorities areas I would establish 
as DDR&E are budget, workforce, technology transition and partnerships. 
To support an innovative, capabilities driven science and technology 
program, it is critical to have funding stability, and sufficient 
resources, to allow the Department to develop technologically superior 
weapons. Stability is especially important so researchers can work on 
problems over a period of time, instead of having to start and stop 
projects. Additionally, the Department needs to continue to emphasize 
recruiting and retaining a quality workforce to address the technology 
challenges confronting the Department of Defense. Along with budget and 
people, there is an added priority to ensure technology is ready to be 
delivered to enhance operational capability of our military. Finally, 
if confirmed, I intend to strengthen our partnerships with other 
government agencies (NASA, Department of Energy, Department of 
Commerce, etc), industry, and universities, as well as with other 
nations. This is a priority because the DOD should leverage what is 
available, and then develop the technology to provide our military a 
superior capability. I believe that there already is an emphasis on 
each of these areas within the Department and it should be maintained.
                  investment in science and technology
    Question. Although the S&T budget has steadily increased over the 
past several years, it is at the lowest share of Total Obligation 
Authority (TOA) in nearly a decade.
    Do you think that this level of funding is adequate given current 
Departmental priorities?
    Answer. I believe that establishing the level of Department-wide 
S&T investment must be set in the overall context of Department 
priorities. It is my understanding that Secretary Rumsfeld has 
established a goal to increase the overall level of the investment to 
3.0 percent of the overall DOD Total Obligation Authority. Mr. Aldridge 
has also publicly supported this goal. While the 3.0 percent figure is 
a goal, this priority must be carefully weighed against other 
Department needs for maintaining and equipping the force. If confirmed, 
I see my job as one that must continue to advocate the value of S&T 
investment to the Department as a whole, and to demonstrate the value 
of technology.
    Question. Secretary Rumsfeld stated publicly in his June 28, 2001, 
testimony that the Department's investment goal for Science and 
Technology is 3 percent of the entire defense budget.
    Is this an adequate and realistic goal for Science and Technology, 
and, if you agree, when do you foresee that this goal will be achieved?
    Answer. I believe that the Secretary's goal is both adequate and 
realistic. Using the benchmark of high technology industry, the 3.0 
percent figure seems to be about right to enable technology 
development. Mr. Aldridge has indicated that he supports the S&T 
investment getting to the 3.0 percent level as soon as possible, and 
wants to achieve this level as early as next year. I believe there is a 
real momentum within this administration to increase the priority of 
science and technology, and if confirmed, I will encourage it to 
continue.
    Question. If confirmed, would you recommend that the services set a 
similar percent of the service budgets as a goal? If so, in what time 
frame would you recommend that this be achieved?
    Answer. If confirmed, I would not recommend setting specific 
percentage investment goals for individual Services. The stated 
Department-wide goal of increasing Defense-wide investment to 3.0 
percent of the DOD Total Obligation Authority is overarching, and 
includes the total investment of the Services and Agencies, such as the 
Defense Advanced Research Projects Agency (DARPA), the Defense Threat 
Reduction Agency (DTRA) and others. The actual allocations of this 
investment should be one that best responds to meeting desired 
capabilities that result from on-going studies such as the Quadrennial 
Defense Review.
    Question. Are there any S&T areas that you feel are currently 
underfunded by the Department?
    Answer. I don't know if there are specific S&T areas that are 
underfunded at present. If confirmed, one of my first tasks will be a 
detailed review of the S&T investment in specific areas to meet 
emerging threats and desired capabilities articulated in on-going 
studies. For instance, as mentioned previously, the on-going 
Quadrennial Defense Review should refine the capabilities the 
Department seeks to develop. Once these important studies are 
completed, the Department must review its current and planned S&T 
investment and determine which areas need more or less funding. The 
administration has articulated a goal of developing revolutionary or 
leap-ahead capabilities. The S&T program should respond to these 
desired capabilities. One of the key functions of the DDR&E is to work 
with the warfighters and present technology options for future 
capabilities. By iterating the technological possibility with the 
warfighters, I believe we will get a clearer definition of the adequacy 
of funding in specific areas.
    Question. Will the funding levels in these areas affect our ability 
to meet the threats of the future?
    Answer. As the Department refines the desired capabilities of the 
future, the level of S&T investment will affect how the Nation can meet 
future threats. There will be capabilities that can be developed more 
quickly, while other areas will require more fundamental scientific 
discovery. However, in general, those areas that are most important to 
the defense of the Nation will get the highest investment priority.
    Question. What are the weaknesses of the current Defense S&T 
strategic planning process? If confirmed, how would you work to ensure 
that these plans are utilized during the budget planning and 
programming process?
    Answer. I believe the S&T strategic planning process needs to be 
linked with the planning processes of the Department. I am aware of The 
Joint Warfighting Science and Technology Plan, which is a document 
updated annually to describe how the Department S&T program will 
deliver near-term capabilities to the warfighter. The warfighter and 
technology communities within the Department cooperatively develop this 
plan. This seems to be an example of an effective near-term process. If 
confirmed, I will review the total planning process, and will emphasize 
near-term and strategic planning throughout the S&T community.
    Question. Are you satisfied with the level of communication and 
coordination among the technical, policy and warfighting communities in 
the formulation of the S&T budget planning, prioritization, and 
management process?
    Answer. It is too early to answer this question. Good communication 
and coordination is critical, and if confirmed, will be a high priority 
for me. This includes communication between the stakeholders in the 
Pentagon, as well as communication with other government agencies and 
Congress. Communication and coordination between the S&T and 
acquisition communities is also critical to enable effective technology 
transition. However, it is too early to answer the question regarding 
my satisfaction with the level of communication between stakeholders.
                coordination with s&t in other agencies
    Question. The Department of Defense currently executes 
approximately half of the total Federal science and technology 
portfolio. Its S&T budget is remaining relatively flat, while those of 
other agencies, namely the National Institutes of Health, are greatly 
increasing. Additionally, many scientific advances made in programs 
managed by civilian agencies are increasingly applicable to military 
needs.
    Do you feel the mechanisms of coordination between Federal civilian 
agencies and DOD are adequate to ensure that the military can best 
leverage the advances of agencies such as NSF, NASA, and NIH?
    Answer. Coordination between Federal agencies and DOD is extremely 
important, but I am unable at this time to assess whether the 
mechanisms are adequate. If confirmed, I will examine the existing 
mechanisms of coordination and recommend improvements, if warranted.
    Question. Do you feel the mechanisms of coordination between 
Federal civilian agencies and DOD are adequate to ensure that we avoid 
duplication and overlap and that we get the best results with limited 
resources?
    Answer. Coordination between Federal agencies and DOD is extremely 
important, but I am unable at this time to assess whether the 
mechanisms are adequate. If confirmed, I will examine the existing 
mechanisms of coordination and recommend improvements, if warranted.
    Question. If not, and assuming you are confirmed, how will you work 
with other Federal agencies and the Office of Science and Technology 
Policy to improve this coordination?
    Answer. N/A.
    Question. With the increasing importance of the interdependency 
between the sciences what actions would you take, if confirmed, to 
ensure an appropriate balance among investments in the various 
scientific disciplines in order to achieve military objectives?
    Answer. If confirmed, one of my initial priorities is to review and 
refine the S&T strategic plan to influence and balance investments in 
various scientific areas. Some specific actions that I would explore 
include greater encouragement of multidisciplinary teams attacking 
problems or exploring opportunities in basic and applied research. I 
would seek advice from the National Academies, the Defense Science 
Board, and other established groups to provide valuable input to the 
Department's scientific program.
                defense laboratories and test facilities
    Question. Congress, the Defense Science Board, and other entities 
have expressed concern regarding the condition of defense laboratories 
and test facilities. Implementation of management and personnel reforms 
and the establishment of innovative cooperative technology development 
programs have been slow and limited.
    What is your opinion of the condition and size of the defense 
laboratory system?
    Answer. I am aware that the Department has conducted a number of 
internal studies regarding technical personnel and laboratory 
infrastructure, but I have not seen them. My work in the academic arena 
has given me first hand insight into the technical workforce problems 
we are facing as a Nation in government, industry and university 
communities. The situation in the Department of Defense was outlined on 
July 12 by Mr. Aldridge who stated before the HASC, ``Another non-
technical challenge and important priority is maintaining a strong S&T 
workforce. The number of scientists and engineers we have is down 
15,300 from the 1990 level of 43,800. This workforce is also aging with 
the average age of the laboratory technology at about 45 years and a 
significant portion of the workforce able to retire in the next 3 
years. There have been numerous studies to look at these and related 
issues, and new efforts are now underway to address.'' If confirmed, 
the defense laboratory system will be given high priority during my 
tenure. For example, a separate office for laboratory oversight would 
be an option under DDR&E.
    Question. If confirmed, how will you work to ensure that the 
defense labs communicate and facilitate the needs of the acquisition 
and warfighting communities?
    Answer. I believe that the defense-wide S&T planning and review 
process should be linked to the DOD strategic planning process 
involving the Commanders in Chief (CINCs), the Joint Staff, the 
Military Departments, and the S&T community. If confirmed, I intend to 
challenge my staff and the S&T executives to continually assess, 
update, and modernize our processes to achieve an active working 
environment with the acquisition and warfighting communities.
    Question. If confirmed, what new regulatory reforms dealing with 
personnel will you propose to ensure that the finest technical talent 
is resident at these facilities?
    Answer. If confirmed, I will assess the various personnel 
initiatives currently being worked in the Department and be open to 
innovative approaches. It is my understanding that the Under Secretary 
of Defense for Personnel and Readiness (USD(P&R)) and the USD(AT&L) are 
in the process of implementing provisions previously approved by 
Congress. If confirmed, I will strive to ensure that options for hiring 
highly skilled scientific and technical staff remain a Departmental 
priority. I will also review existing legislative proposals, and 
recommend options for additional reforms as appropriate.
                         technology transition
    Question. A number of programs have been established to try to 
speed the transition of technologies and other innovations from science 
and technology programs into the hands of warfighters.
    If confirmed, what new ideas will you propose to assist in 
technology transition efforts?
    Answer. I believe enhancing technology transition is one of the 
more important functions of the DDR&E. If confirmed, I will continue to 
push for efficient technology transition to rapidly provide new 
capabilities for the warfighter. For example, as an Air Force Reserve 
officer, I was involved with the TENCAP (Tactical Exploitation of 
National Capabilities) program, designed to bring capabilities of 
national intelligence systems to operational warfighters. In this role, 
I saw first-hand the value of transitioning previously unavailable 
technologies to the warfighter. I understand that there are existing 
DOD programs, such as the Advanced Concept Technology Demonstration 
(ACTD) Program that can provide technology quickly to the warfighter 
for validation, thus streamlining acquisition. I also believe that the 
establishment of a current year source of funds could provide a 
mechanism to speed transition of rapidly maturing technology to system 
capabilities for warfighter use. If confirmed, I would support an 
approach of continual involvement of the technology, acquisition, and 
warfighting communities to give the Department a more efficient 
technology transition process.
    Question. What is the role of the Office of Director of Defense 
Research and Engineering in facilitating communication between 
technical communities to speed technology transition?
    Answer. If confirmed, I believe my role will be as an active 
participant in establishing strong communication among the Military 
Services, Defense Agencies, academia, industry, and other government 
agencies to share best practices and build new initiatives and metrics 
to ensure mature technologies are ready for insertion into weapon 
systems.
                  other science and technology issues
    Question. What is your assessment of the value of cooperative 
research and development programs with international partners?
    Answer. I believe that cooperative R&D programs have the potential 
to be very valuable. These cooperative programs can reduce duplication 
and improve interoperability. At the same time we would need to ensure 
that our national security interests are protected and that these 
programs support competitiveness. If confirmed, I would support 
international programs meeting appropriate criteria.
    Question. What are the obstacles to more effective international 
cooperation and, if confirmed, how would you address those obstacles?
    Answer. While I understand the importance of effective 
international cooperation, this is an area I will, if confirmed, need 
to investigate further. Issues such as export control procedures and 
intellectual property rights are factors that will need to be 
understood and addressed.
    Question. How will increased international technology cooperation 
affect our domestic defense industrial base?
    Answer. I am not an expert in this area. From one perspective, 
international cooperation could assist our industrial base in the 
development of joint technical ventures and increase our suppliers' 
potential business base. If confirmed, I will explore this area with 
Government and industry leaders.
    Question. What are the biggest challenges in R&D related to theater 
and national missile defense systems?
    Answer. The lead for the development of near-term missile defense 
systems is the Ballistic Missile Defense Organization (BMDO). For the 
long-term program, I understand that R&D efforts would be coordinated 
throughout the S&T community to provide technology options for future 
system designs. If confirmed, I will encourage innovative technology 
approaches to enable future capabilities to include missile defense.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges?
    Answer. DDR&E will play a support role to BMDO as required for the 
near-term missile defense programs. R&D challenges for the future 
missile defense systems include: discrimination, command and control, 
directed energy, propulsion, software, etc.
    Question. If confirmed, how will you strengthen the ability of 
Service and Agency officials to oversee and adequately test these and 
other rapidly expanding and technically complex programs?
    Answer. I will begin by saying that, if confirmed, under the 
current organization of USD(AT&L), neither formal operational or 
developmental test and evaluation are under the responsibility of the 
DDR&E. However, with any technology demonstration, continual design 
test and evaluation should be part of the technology development 
process. If confirmed, I will strive to ensure the science and 
technology community is responsive to the formal test and evaluation 
communities, and explore appropriate organizational placement of test 
and evaluation as part of the overall system development process.
    Question. The domestic defense industrial base, particularly the 
industrial research and development base, continues to be an issue of 
concern.
    What is your vision of the future of the private sector defense R&D 
enterprise?
    Answer. I believe the Nation needs a strong private sector defense 
R&D enterprise. The past decade has seen major changes in the defense 
industrial base caused by downsizing and consolidation, and, at the 
same time, the Department of Defense has downsized. I believe the 
Department needs to continue to treat the defense industrial sector as 
a partner in delivering capabilities for the warfighter. If confirmed, 
I will review the current government-industry cooperative arrangements 
and explore potential innovative arrangements to provide optimum future 
capabilities.
    Question. If confirmed, how will your work to ensure that the 
private sector technology and research base is adequate to meet our 
national needs for technical innovation and engineering expertise in 
militarily critical technologies?
    Answer. I believe the issue of ensuring that the private sector 
technology and research base is adequate is a national level issue, and 
one that, if confirmed, will receive significant attention from my 
office. I also believe there is no simple solution to ensuring an 
adequate technology and research base. Sustained investment is 
important, and certainly industry operates to make a profit. If 
confirmed, I will strive to establish and maintain an information 
exchange with leaders of industry as one step toward addressing this 
enabler for future military capabilities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Director of Defense 
Research and Engineering?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Joseph I. Lieberman
                   national nanotechnology initiative
    1. Senator Lieberman. Dr. Sega, despite DOD's participation in an 
interagency working group and Subcommittee of the National Science and 
Technology Council as part of the planning process for the National 
Nanotechnology Initiative (NNI), I am concerned that the Department is 
not honoring its commitments to this initiative for fiscal year 2002. I 
am particularly concerned that, due to significant cuts in the 
University Research Initiative line in the OSD budget, DOD will not be 
able to fund the second year of multi-year awards from fiscal year 
2001.
    How do you plan to ensure DOD is able to honor both its multi-year 
awards and its fiscal year 2003 and beyond commitments to multi-agency 
research initiatives such as the National Nanotechnology Initiative?
    Dr. Sega. The DOD's fiscal year 2002 budget request and fiscal year 
2003-2006 plans for the University Research Initiative include the 
funding needed for the multi-year awards begun in fiscal year 2001 
under the National Nanotechnology Initiative (NNI). Although no 
commitments for specific NNI funding levels in fiscal year 2002 or 
later years have been made, it is my belief that the Department will 
continue to strongly support initiatives in research areas important to 
national defense, including nanoscience and nanotechnology.

    2. Senator Lieberman. Dr. Sega, what are your plans for future DOD 
participation in interagency coordination activities for the National 
Nanotechnology Initiative?
    Dr. Sega. DOD will continue to participate in the coordination 
activities for interagency initiatives in nanoscience and 
nanotechnology. Our current plans are to continue these activities and 
provide the support stated in the Memorandum of Understanding amongst 
the participating agencies, which established the National 
Nanotechnology Coordination Office.

                             s&t leadership
    3. Senator Lieberman. Dr. Sega, particularly given the trends 
toward modernization and transformation, and the fact that emerging 
threats are driving us to consider new defenses, it is my opinion that 
we need very strong leadership in S&T both in the Services and in OSD. 
    How do you plan to ensure the voice of the S&T leadership is 
prevalent in the highest levels of DOD? Will you hold formal briefings 
to the Secretary or the Joint Chiefs on both S&T and T&E programs?
    Dr. Sega. I am the principal staff assistant and advisor to the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) for DOD scientific and technical matters, basic and applied 
research, and advanced technology development. I report directly to the 
USD(AT&L) and act as the Department's chief technology officer to focus 
efforts on developing improved capabilities for the warfighter. I will 
provide formal briefings to the Secretary or the Joint Chiefs of Staff, 
with the concurrence of the USD(AT&L), when requested or as advocacy 
for programs with the potential for high payoff. As stated in my 
Confirmation Hearing, Mr. Aldridge, the USD(AT&L), has told me I will 
either accompany or represent him in meetings with the Secretary that 
involve science and technology.

    4. Senator Lieberman. Dr. Sega, given the significant potential of 
Network Centric Warfare to exploit the power of information and 
information technology to achieve battlefield dominance, how do you 
plan to:
    a. Carry out a joint experimentation program to develop new 
operational concepts which take full advantage of the advances in 
network-centric capabilities?
    Dr. Sega. As you may be aware, DOD has in place a number of 
activities that deal with experimentation of new ideas and joint 
matters. These include Joint Warfighting Experiments, joint test and 
evaluation to develop training tactics and procedures, advanced concept 
technology demonstrations (ACTDs), and so on. An example of these is 
the ACTD called Coalition Aerial Surveillance and Reconnaissance 
(CEASAR), which provides interoperability of ground moving target 
indicator assets of the U.S. and seven of our allies, and will be 
demonstrated via NATO military exercises. Another example is the 
Network-Centric Collaborative Targeting (NCCT) ACTD. NCCT includes 
numerous sensor types and is developing and applying network-centric 
techniques, collaborative concepts, and front-end processing to multi-
Service intelligence, surveillance, and reconnaissance assets to 
provide target-quality information on time-critical targets. From the 
results of this and other similar demonstrations and experiments, the 
Department will gain residual capabilities and valuable experience that 
will help us move towards the overarching vision of Network-Centric 
Warfare. The Deputy Under Secretary of Defense (Advanced Systems and 
Concepts) reports to me. I will ensure the ACTD program supports the 
fulfillment of this vision.

    4b. Senator Lieberman. Ensure that OSD and the services place the 
requisite priority on development of the associated technologies?
    Dr. Sega. One of the initiatives I will undertake is to increase 
the emphasis on our defense technology base. I also plan to monitor the 
progress we make on our tech base activity via the various tools that 
will be available to me. One of these tools is the Department's science 
and technology (S&T) Reliance process, which includes the conduct of 
Technology Area Review and Assessments. These assessments involve 
panels composed of members from the DOD, academia, and industry. They 
are chartered to review various technology areas, such as information 
systems technology. Recommendations from these panels are presented to 
senior Defense officials, including the top Service S&T 
representatives. They in turn take appropriate action (i.e., enforce 
adjustments to investments) to ensure the Services and Agencies place 
the requisite priority on the development of associated technologies 
that support the concept of network-centric warfare. In addition to 
defense-unique technology, we need to leverage the commercial sector 
technology. The commercial sector offers great opportunities in 
information and communication technologies, which are in the heart of 
network-centric warfare. We can take advantage of these sectors to get 
better results faster and at less cost.

    5. Senator Lieberman. Dr. Sega, although DARPA has long been 
recognized as a major leader in developing revolutionary military 
technologies, there has been some concern lately that, due to the lack 
of an effective transition mechanism, many of these promising 
technologies are not fully leveraged in the services. How do you intend 
to address these concerns?
    Dr. Sega. The Department is making progress in the area of 
transitioning promising revolutionary technologies to the Services. 
DARPA has established a Memorandum of Agreement (MOA) with the Army to 
develop technology for Future Combat Systems. Another MOA has been 
established with the Air Force to develop technology for Unmanned 
Combat Air Vehicles. Each of the three Military Departments actually 
provide contracting services and technical oversight for a sizable 
portion of DARPA's S&T investment, and gain in-depth understanding of 
technology that is available for leveraging. The Department has also 
established a Technology Advisory Committee to recommend and advise on 
unique military technologies for ``war winning'' capabilities. An 
annual report will outline new opportunities for the DOD S&T program, 
including DARPA. The report will also track the number of technologies 
moving to higher technology readiness levels. Finally, the Under 
Secretary of Defense for Acquisition, Technology, and Logistics has 
instituted a process to track specific high priority metrics in areas 
of special interest. One of these metrics will actually track the 
number of technologies maturing and transitioning from DARPA to the 
Services.

                                 darpa
    6. Senator Lieberman. Dr. Sega, in a recent report evaluating 
DARPA's investment strategy, the Defense Science Board expressed 
concern that DARPA has shifted much of its portfolio from a focus on 
revolutionary technologies to a focus on short-term procurement. The 
DSB called on DARPA to modify their current investment strategy and 
refocus on mid- and longer-term programs, in an effort to build on 
their original strengths of funding the types of high-risk, high-payoff 
programs that have led to our current military technological dominance.
    How do you intend to work with the DARPA Director to make sure the 
agency considers the DSB study recommendations in planning future 
investments?
    Dr. Sega. As the Director of Defense Research and Engineering, I am 
responsible for the overall direction, quality, and content of the DOD 
S&T program. The Director of DARPA reports directly to me. We are 
currently reviewing the integrated strategic planning and assessment 
process that supports the S&T program and DARPA is a major player in 
that process. Our strategic planning process seeks to achieve a 
balanced DOD S&T program investment that supports the development of 
advanced emerging operational concepts and systems in the evolutionary 
acquisition process, as well as investments in technologies and systems 
that can provide significant improvements in military capability. In 
the mid-1990s, DARPA was asked to help develop and adapt technologies 
to help address near-term military capability shortfalls that became 
apparent during the Gulf War especially in Command, Control, 
Communications and Computer; and Intelligence, Surveillance, and 
Reconnaissance. DARPA is increasing its focus on technologies that 
support the development of long-term, high-risk, and high-payoff 
military capabilities.
           dod laboratories and civilian personnel provisions
    7. Senator Lieberman. Dr. Sega, in the past several years, we have 
been particularly concerned about personnel and management issues in 
DARPA and the Service Laboratories. We have worked hard to provide 
legislative relief in the form of several innovative provisions aimed 
specifically at improving the ability to recruit and retain high-
quality personnel. These provisions include both the Pilot Program for 
Revitalizing DOD Laboratories and Civilian Personnel Provisions (fiscal 
year 1999, Section 246; fiscal year 2000, Section 245), and a provision 
to expand the experimental civilian personnel program (fiscal year 
2001, Sections 1113 and 1114).
    How do you intend to implement these provisions and are there other 
ideas you have regarding strategies to revitalize the laboratories?
    Dr. Sega. Revitalization of the defense labs and their workforce is 
a priority discussion and action area for us. Section 246 pilot labs 
and centers have been designated and appropriate authorities granted to 
explore innovative ways of improving partnering and efficiency. Section 
245 pilot labs and centers have been designated and on June 21, 2001 we 
issued instruction to the DOD Components initiating the Department's 
efforts to achieve ``expedited hiring'' authority and to begin the 
process of exploring innovative ways of improving the workforce and 
efficiency in the DOD. I feel these authorities will enable selected 
DOD laboratories and test and evaluation centers to develop a 
revitalized workforce with the appropriate mix of skills and experience 
and to effectively compete in hiring the finest scientific talent. 
Additionally, I will continue to work with the Department and the 
Services to find additional ways to expedite hiring for our Defense 
Laboratories.
    I believe Section 1113 will help in the recruitment and appointment 
of eminent experts in science and engineering. DARPA is aggressively 
seeking new employees using the special hiring authority under Sections 
1102 and 1113. On May 18, 2001, the Deputy Secretary of Defense 
delegated Section 1113 authority to the Under Secretary of Defense for 
Personnel and Readiness. In turn, the USD (P&R) re-delegated this 
authority to the Secretaries of the Military Departments on July 17, 
2001. In order to maintain a corporate perspective, the re-delegation 
to the Service Secretaries contained a provision that requires them to 
develop a single allocation plan for 40 positions and present it to 
Director Defense Research & Engineering (DDR&E) for coordination. I 
will work with the Services to ensure we utilize this authority and I 
will maintain oversight of this program.
    On April 26, 2001, the Secretary delegated authority for 
implementing Section 1114 to the Under Secretary of Defense for 
Personnel and Readiness with the coordination of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics. The Department is 
examining potential initiatives and options that innovatively utilize 
the Section 1114 authority. As an example, we have instituted 
procedural changes to the processing of Federal Register announcements, 
which has already served to expedite personnel demonstration 
initiatives.
    Throughout the implementation process of these legislated 
authorities, we will continue to work with Congress to identify 
additional areas which may support laboratory revitalization.

    8. Senator Lieberman. Dr. Sega, with cooperation from Congress, do 
you feel that you can make noteworthy progress toward revitalizing the 
labs through incremental improvements such as the ones previously 
mentioned, or do you foresee the need for a major reform of the civil 
service?
    Dr. Sega. As we go forward, I am confident that we will make 
progress in lab revitalization. I do not foresee, at present, a need 
for a major civil service reform to accomplish the revitalization. But, 
I will be attentive to this issue and will seek assistance if current 
Civil Service law becomes an insurmountable barrier to defense lab 
revitalization.

                 dod's highest priority research areas
    9. Senator Lieberman. Dr. Sega, in the Fiscal Year 2000 National 
Defense Authorization Act, Section 241, Congress requested a report on 
Emerging Operational Concepts and Technological Objectives for Research 
and Development. I hoped this report would elucidate DOD's priorities 
and serve as a roadmap in establishing current research investment 
strategy.
    Either reflecting the results of this report or from your own 
perspective, could you briefly summarize DOD's highest priority 
research areas?
    Dr. Sega. The Section 241 report on Emerging Operational Concepts 
was based on the framework of Joint Vision 2020; however, this 
administration has asked the Department to examine leap-ahead 
technologies in the context of the ongoing Quadrennial Defense Review 
(QDR). As part of the preparation for the QDR, the Office of the Deputy 
Under Secretary of Defense (Science & Technology) and the Science and 
Technology (S&T) Executives from the Services and the Defense Agencies 
developed a set of 12 S&T Strategic Initiatives this past spring. They 
are: Counters to Asymmetrical Threats; Time Critical, Standoff, and 
Concealed Target Defeat; Chem-bio Defense Modeling and Stand-Off 
Detection; Cruise and Ballistic Missile Defense; Military Operations in 
Urban Terrain; Network Centric Warfare; Fuller Dominance of Space; 
Unmanned Systems for Land, Air, Space, Sea, and Underwater; Nanoscience 
and Advanced Materials; Directed Energy; Advanced Power; and Human 
Dimension and Psychological Factors. Adjustment of these Strategic 
Initiatives and associated S&T investment in the highest priority areas 
may be made following the results of the Quadrennial Defense Review 
(QDR).

                              s&t funding
    10. Senator Lieberman. Dr. Sega, I am concerned that, as a whole, 
DOD is not investing in S&T at a level which will allow our Nation to 
maintain technological superiority. A recent Defense Science Board 
study recommended, based upon trends in industrial research investment, 
that the Department of Defense should be investing at least 3 percent 
of its total budget in S&T. The S&T request for fiscal year 2002, at 
$8.8 billion, is both less than the request for fiscal year 2001, and 
less than that which would track the DSB recommendations ($10 billion).
    How will you make the case for increased S&T funding, to meet or 
exceed these recommendations, in fiscal year 2003?
    Dr. Sega. It is the Department's objective to grow the S&T budget 
to be 3 percent of the total DOD top-line budget as soon as possible. 
However, we also need to ensure that the funding levels of the various 
components in the Department's total budget are balanced based on our 
assessment of the most urgent requirements at any given time. The 
fiscal year 2002 S&T request for $8.8 billion is a 17.3 percent 
increase over the fiscal year 2001 S&T request for $7.S billion, and 
moves the Department toward the 3 percent goal.
                                 ______
                                 
               Question Submitted by Senator John Warner
                          defense laboratories
    11. Senator Warner. Dr. Sega, this committee continues to be 
concerned about the loss of scientific talent in our Nation's defense 
laboratories. As you are aware, the labs have experienced a tremendous 
drop in personnel over the past 10 years and the next 5 years we are 
faced with an additional 50 percent retirement eligibility.
    How will you ensure that these national treasures are revitalized 
and can provide our military with the best scientific talent available?
    Dr. Sega. Revitalization of the defense labs and their workforce is 
a priority discussion and action area for both the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD(AT&L)) and 
myself and we are paying close attention to this matter. There are a 
number of personnel initiatives currently being worked in the 
Department and I will ensure they remain a high priority within 
Director Defense Research & Engineering (DDR&E). Additionally, I will 
work very closely with the Under Secretary of Defense for Personnel and 
Readiness (USD(P&R)) in developing and initiating activities to take 
advantage of legislative authorities for hiring and retaining a highly 
skilled scientific and technical workforce. To help laboratory 
directors better compete for highly skilled scientific and technical 
personnel, DDR&E is working hand in hand with USD(P&R) to implement the 
provisions in Section 245 of the NDAA for Fiscal Year 2000 that gives 
the laboratory directors ``expedited hiring authority''. This 
initiative should provide additional flexibility to the defense 
laboratories' personnel system and make it easier for the laboratory 
directors to recruit highly qualified scientific and technical 
individuals in a timely manner. I will ensure this plan remains on 
track.
    Another legislative authorization that will aid in the recruitment 
and appointment of eminent experts in science and engineering is 
Section 1113 of the NDAA for Fiscal Year 2001. This reform provides 
another means to enable the laboratory directors to attract technical 
talent. The Military Departments, in coordination with DDR&E, are 
currently planning implementation procedures to enable the laboratories 
to appoint up to 120 eminent experts in science and engineering to 
temporary employment positions without regard to existing civil service 
laws concerning appointment and compensation. I will work with the 
Services to ensure we utilize this authority and I will maintain 
oversight of this program.
    The Department will work with the Office of Personal Management and 
the Office of Management and Budget to define additional authorities 
that would benefit the laboratory directors. This will be an ongoing 
process, and I am committed to working with Congress for the purpose of 
defense laboratory revitalization. Ultimately, DOD is only one of 
several Federal agencies, which will benefit from enhancing science, 
mathematics and engineering at the national level.
                                 ______
                                 
    [The nomination reference of Dr. Ronald M. Sega follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. Ronald M. Sega, of Colorado, to be Director of Defense Research 
and Engineering, vice Hans Mark, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Ronald M. Sega, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. Ronald M. Sega
    Ronald M. Sega assumed his current position as Dean, College of 
Engineering and Applied Science, University of Colorado at Colorado 
Springs in 1996. He has had an extensive career in academia, research, 
and government service. Dr. Sega began his academic career as a faculty 
member in the Department of Physics at the U.S. Air Force Academy. As 
an Assistant Professor, he taught physics courses, designed and 
constructed a Microwave/Infrared Advance Laboratory, and conducted 
research in applied electromagnetic field theory. This led to his 
appointment as an Assistant Professor in the Department of Electrical 
and Computer Engineering at the University of Colorado at Colorado 
Springs in 1982. In addition to teaching and research activities, he 
also served as the Technical Director of the Laser and Aerospace 
Mechanics Directorate at the F.J. Seiler Research Laboratory at the 
U.S. Air Force Academy and at the University of Houston as the 
Assistant Director of Flight Programs and Program Manager for the Wake 
Shield Facility. Dr. Sega has authored or co-authored over 100 
technical publications and was promoted to Professor in 1990.
    In 1990, Dr. Sega joined NASA, becoming an astronaut in July 1991. 
He served as a mission specialist on two Space Shuttle Flights, STS-60 
in 1994, the first joint U.S./Russian Space Shuttle Mission and the 
first flight of the Wake Shield Facility, and STS-76 in 1996, the third 
docking mission to the Russian space station Mir where he was the 
Payload Commander. He was also the Co-Principal Investigator for the 
Wake Shield Facility and the Director of Operations for NASA activities 
at the Gagarin Cosmonaut Training Center in 1994-1995.
    Dr. Sega is also an officer in the Air Force Reserve, recently 
promoted to the rank of Major General. A Command Pilot in the Air Force 
with over 4,000 hours, he has served as an Instructor Pilot and in 
various operational assignments. Since 1987 he has held many positions 
in the Air Force Reserves in support of planning and operational 
activities of the Air Force Space Command. Currently, he is assigned as 
the Mobilization Assistant to the Commander, Headquarters Air Force 
Space Command (AFSPC), Peterson Air Force Base, Colorado.
    He graduated from the U.S. Air Force Academy in 1974 with a B.S. 
Degree in Math and Physics, from Ohio State University in 1975 with an 
M.S. Degree in Physics, and from the University of Colorado in 1982 
with a Ph.D. in Electrical Engineering.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Ronald M. 
Sega in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ronald Michael Sega.

    2. Position to which nominated:
    Director of Defense, Research and Engineering.

    3. Date of nomination:
    July 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 4, 1952; Cleveland, Ohio.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ann Elizabeth Flemke.

    7. Names and ages of children:
    N/A.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Nordonia High School, 1965-1970, Diploma (1970).
    U.S. Air Force Academy, 1970-1974, Bachelor of Science in Math and 
Physics (1974).
    Ohio State University, 1974-1975, Master of Science in Physics 
(1975).
    Squadron Officers School, 1977-1979, Correspondence Program (1979).
    University of Colorado, 1979-1982, Ph.D. in Electrical Engineering 
(1982).
    Air Command and Staff College, 1982-1985, Seminar Program (1985).
    Air War College, 1988-1991, Seminar Program (1991).
    Harvard University, 1997, Management Institute.
    Harvard University, John F. Kennedy School of Government, 2001, 
Executive Program in Global Security.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

Civilian Positions Held:
  1996-Present............................  Dean, College of Engineering
                                             and Applied Science,
                                             University of Colorado at
                                             Colorado Springs (UCCS),
                                             Colorado Springs, CO 80933-
                                             7150.
  1990-Present............................  Professor, Department of
                                             Electrical and Computer
                                             Engineering, University of
                                             Colorado at Colorado
                                             Springs (UCCS), Colorado
                                             Springs, CO 80933-7150.
  1990-1996...............................  Astronaut.
  1994-1995...............................  Director of Operations,
                                             Russia (Star City).
  1990-1991...............................  Astronaut Candidate,
                                             National Aeronautics and
                                             Space Administration,
                                             Lyndon B. Johnson Space
                                             Center, Houston, TX 77058.
  1990-1996...............................  Adjunct Professor of
                                             Physics, University of
                                             Houston, Houston, TX 77004.
 



Military Assignments (Air Force Reserves):
  Oct 1989-Aug 1991.......................  Individual Mobilization
                                             Augmentee to the Director,
                                             Force Enhancement,
                                             Headquarters, Air Force
                                             Space Command, Peterson Air
                                             Force Base, CO.
  Aug 1991-July 1993......................  Individual Mobilization
                                             Augmentee to the Director
                                             of Space Applications,
                                             Headquarters, Air Force
                                             Space Command, Peterson Air
                                             Force Base, CO.
  Jul 1993-Nov 1996.......................  Individual Mobilization
                                             Augmentee to the Director
                                             of Plans, Headquarters, Air
                                             Force Space Command,
                                             Peterson Air Force Base,
                                             CO.
  Nov 1996-Mar 1998.......................  Mobilization Assistant to
                                             the Director of Operations,
                                             Headquarters, Air Force
                                             Space Command, Peterson Air
                                             Force Base, CO.
  Mar 1998-Feb 2000.......................  Mobilization Assistant to
                                             the Commander, Space
                                             Warfare Center, Schriever
                                             Air Force Base, CO.
  Feb 2000-present........................  Mobilization Assistant to
                                             the Commander, Headquarters
                                             Air Force Space Command
                                             (AFSPC), Peterson Air Force
                                             Base, CO.
 


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.

2000-present..............................  Service Academy Review Board
                                             for Senator Ben Nighthorse
                                             Campbell.
2000......................................  International Space Station
                                             Operations Architecture
                                             Study (Study for NASA
                                             through Computer Sciences
                                             Corporation).
1999-present..............................  Senator Allard's Round
                                             Tables on Space/High
                                             Technology.
                                            Colorado Space Strategy
                                             Initiative--Oversight
                                             Committee.
1998-1999.................................  Manufacturers Steering
                                             Group, Chamber of Commerce.
1996-present..............................  NASA Commercialization
                                             Advisory Committee.
1997-present..............................  NASA Space Station
                                             Utilization Advisory
                                             Committee.
 


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.

1996-present..............................  Dean, College of Engineering
                                             and Applied Science,
                                             University of Colorado at
                                             Colorado Springs.
2000-present..............................  Board of Directors--INROADS
                                             Colorado.
                                            Trustee--Aerospace Education
                                             Foundation.
2000......................................  International Space Station
                                             Operations Architecture
                                             Study, (Study for NASA
                                             through Computer Sciences
                                             Corporation).
1998-present..............................  Board of Directors (Ex-
                                             Officio)--Greater Colorado
                                             Springs, Economic
                                             Development Corporation.
                                            Board of Directors--Colorado
                                             Springs Challenger Learning
                                             Center.
                                            Chair, Board of Directors--
                                             Pikes Peak Observatory.
                                            Board of Directors--Pikes
                                             Peak YMCA Southeast and
                                             Armed Services Y.
 


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.

1996-present..............................  Dean, College of Engineering
                                             and Applied
                                             Science,University of
                                             Colorado at Colorado
                                             Springs.
2000-present..............................  Board of Directors--INROADS
                                             Colorado.
                                            Trustee--Aerospace Education
                                             Foundation.
1999-present..............................  U.S. Air Force Academy
                                             Association of Graduates.
                                            Colorado Space Strategy
                                             Initiative--Oversight
                                             Committee.
1998-present..............................  Board of Directors (Ex-
                                             Officio)--Greater Colorado
                                             Springs Economic
                                             Development Corporation.
                                            Board of Directors--Colorado
                                             Springs Challenger Learning
                                             Center.
                                            Chair, Board of Directors--
                                             Pikes Peak Observatory.
                                            Board of Directors--Pikes
                                             Peak YMCA Southeast and
                                             Armed Services Y.
1996-present..............................  NASA Commercialization
                                             Advisory Committee.
1997-present..............................  NASA Space Station
                                             Utilization Advisory
                                             Committee.
                                            Space Technology Hall of
                                             Fame Selection Committee.
1991-present..............................  American Institute of
                                             Aeronautics and
                                             Astronautics (AIAA).
1979-1999.................................  American Physical Society
                                             (APS).
1994-present..............................  Association of Space
                                             Explorers (ASE).
1984-present..............................  Eta Kappa Nu.
1980-present..............................  Institute of Electrical and
                                             Electronics Engineers
                                             (IEEE).
1983-present..............................  Reserve Officer Association.
 


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
Major Military Awards and Decorations:
    Legion of Merit.
    Defense Meritorious Service Medal.
    Meritorious Service Medal with one oak leaf cluster.
    Air Force Commendation Medal with one oak leaf cluster.
    Air Force Achievement Medal.
    Air Force Outstanding Unit Award.
    Air Force Organizational Excellence Award with one oak leaf 
cluster.

Other Awards/Achievements:
    Aerospace Education Foundation--Elected Trustee, 2000.
    Educator of the Year 1998-1999, INROADS, Colorado.
    Honorary Doctorate, Bridgewater State College, 1998.
    NASA Outstanding Leadership Medal (Payload Commander, STS-76), 
1997.
    American Astronautical Society Flight Achievement Award, 1996.
    NASA Acquisition Improvement Award (X-33), 1996.
    NASA Space Flight Medal (STS-76), 1996.
    Institute of Electrical and Electronics Engineers--Elected Senior 
Member, 1996.
    Group Achievement Award (NASA--Crew Exchange Working Group with 
Russia), 1995.
    Superior Achievement Award (NASA--Director of Operations, Russia), 
1995.
    Group Achievement Award (Microgravity Measurement Device 
Development Team), 1994.
    NASA Space Flight Medal (STS-60), 1994.
    Ohio Veterans Hall of Fame, 1994.
    Honorary Doctorate--Clarkson University, 1993.
    Fellow, Institute for the Advancement of Engineering, 1992.
    Associate Fellow, American Institute of Aeronautics and 
Astronautics (AIAA), 1992.
    Selected as an Astronaut, 1991.
    Reserve Officer (IMA) of the Year--U.S. Air Force, 1988.
    Reserve Officer (IMA) of the Year--Air Force Space Command, 1988.
    Sustained Superior Service Award--Frank J. Seiler Research 
Laboratory, 1988.
    Academic Hall of Fame--Nordonia High School, Macedonia, Ohio, 1988.
    Outstanding Faculty Award--Department of Electrical Engineering, 
University of Colorado at Colorado Springs, 1985.
    Air Force Research Fellow--Air Force Office of Scientific Research, 
1985.
    Regional Finalist--White House Fellowship, 1984.
    Officer of the Year in the Physics Department, U.S. Air Force 
Academy, 1980.
    Top Graduate of Pilot Instructor Training Course, 1976.
    Distinguished Graduate, U.S. Air Force Academy, 1974.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Speech/presentation topics have not addressed policy issues or 
systems trade studies, but rather have focused on such topics as my 
technical research, space flight experiences, importance of math and 
science education, and the need for a technical workforce. Speeches/
presentations (over 100 in the last 5 years) are given extemporaneously 
or from notes (to my knowledge, transcripts have not been made).
    Examples from the last 5 years:
    -- Commencement--Trinidad State Junior College (Trinidad, CO)
    -- Educational Speaking Tour through Europe (AF Bases)
    -- National Science Teachers Conference (Las Vegas, NV)
    -- University of Colorado Founders Night
    -- Commencement--Bridgewater State College
    -- South Bay Economic Development Council (Los Angeles, CA)
    -- Electronics Industries Association (Mexico)
    -- Bulgarian Air Force Academy (Bulgaria)
    -- Josef Stephan Institute (Slovenia)
    -- Commencement--Front Range Community College
    -- Nuclear and Space Radiation Effects Conference
    -- National Association of Newspaper Editors
    -- ROTC Dining Outs and Awards Ceremonies
    -- Commencement--Tohatchi High School (New Mexico)
    -- International Council of Systems Engineers
    -- Air Force Reserve Senior Leader Meeting
    -- Commencement--Widefield High School
    -- National Character and Leadership Symposium (AF Academy)
    -- Aurora Economic Development Quarterly Meeting
    -- Blue and Gold Banquet (Boy Scouts)
    -- Retired Officer Association

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Dr. Ronald M. Sega.
    This 13th day of July, 2001.

    [The nomination of Dr. Ronald M. Sega was reported to the 
Senate by Senator Allard on August 2, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2001.]
                              ----------                              

    [Prepared questions submitted to Michael L. Dominguez by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   July 25, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Michael L. Dominguez. 
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    What is your view of the extent to which these defense reforms have 
been implemented?
    What do you consider to be the most important aspects of these 
defense reforms?
    Answer. Yes, I support full implementation of Goldwater-Nichols. 
Considerable effort has been made to implement these reforms over the 
past 15 years, and the right mechanisms are in place and working. In my 
opinion, Goldwater-Nichols is probably one of the most significant 
pieces of legislation enacted in the second half of the 20th Century--
greatly improving the organization of the Department of Defense and 
focusing our joint warfighting capabilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibilities on 
the combatant commanders for the accomplishment of their missions; 
ensuring the authority of the combatant commanders is commensurate with 
their responsibility; increasing attention to the formulation of 
strategy and to contingency planning; providing for more efficient use 
of defense resources; and enhancing the effectiveness of military 
operations and improving the management and administration of the 
Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions of 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. Goldwater-Nichols has served the Department of Defense well 
since 1986; however, there are dynamics today different from 15 years 
ago that may warrant review of some provisions, such as the personnel 
assignment rules and how we select joint specialty officers. If 
confirmed, I would like to explore those issues, in cooperation with 
Congress, to ensure we have sufficient flexibility in the management of 
our personnel resources in a joint environment.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force (Manpower and Reserve 
Affairs)?
    Answer. The principle duties of the Assistant Secretary are to 
support the tasks assigned by the Secretary of the Air Force. Based on 
my understanding, the duties will include providing guidance, 
direction, and oversight for Air Force manpower/personnel programs; 
medical readiness and health care; plus Reserve component affairs. I've 
been briefed that the Assistant Secretary also is responsible for 
programs to prohibit discrimination and oversight of the operation of 
the Secretary of the Air Force Personnel Council and its component 
boards--the Air Force Civilian Appellate Review Office and the Air 
Force Board for the Correction of Military Records.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am humbled that the President would nominate me for this 
Assistant Secretary position, and, if confirmed, pledge my sincere 
efforts to uphold the duties with honor and integrity. There are 
several components of my background that I believe make me well suited 
for this position. First, I am a veteran who, as a graduate of the 
United States Military Academy at West Point, proudly served our Nation 
at home and abroad. Those experiences shaped my appreciation for the 
sacrifices made by our men and women who serve in uniform-both Active 
and the Reserve component. Second, I bring over 15 years experience as 
a civil servant--serving at various levels of responsibilities within 
the Office of the Secretary of Defense and the Department of the Navy. 
That has provided me an invaluable insight into the day-to-day workings 
of the Department, its civilian/military structure, and its 
relationship with Congress and other Federal agencies. Last, I bring a 
strong background in program analysis, the Planning, Programming, and 
Budgeting System, and business acumen that will provide me the basis to 
review and assess our various manpower and personnel issues.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force (Manpower and Reserve Affairs)?
    Answer. If confirmed, I look forward to learning more about the Air 
Force, its mission and its people, in order that I can best work the 
recruiting, retention, health, and quality of life issues impacting our 
Total Force
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed, I look forward to being a part of Secretary 
Roche's management team, and I would expect him to assign me duties 
consistent with the position--providing guidance and oversight for the 
various Air Force manpower and Reserve component programs.
    Question. In carrying out your duties, how will you work with the 
Under Secretary of Defense for Personnel and Readiness, the Assistant 
Secretary of Defense for Force Management Policy, the Assistant 
Secretary of Defense for Reserve Affairs, the Assistant Secretary of 
Defense for Health Affairs, the Chief of Staff of the Air Force, and 
the Chief of Air Force Reserve?
    Answer. If confirmed, I plan to foster a close working relationship 
with my civilian counterparts in the Office of the Secretary of Defense 
and the other Services, plus with the Air Force Chief of Staff and the 
Chiefs of the Reserve components, in order to effectively oversee our 
``people'' programs.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Assistant Secretary of the Air 
Force (Manpower and Reserve Affairs)?
    Answer. From my perspective, the challenges of recruiting and 
retaining an all-volunteer force in a tight, competitive job market 
cannot be overstated. If confirmed, I will focus my attention on those 
two principle areas to ensure we maintain the right level of emphasis 
and resources. The Air Force must have competitive, flexible personnel 
programs to attract and retain the best and the brightest in service to 
their country. Also, I will continue the focus on the Air Force's 
quality of life programs, such as health care; workplace environment; 
and affordable housing.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Air Force (Manpower and Reserve 
Affairs)?
    Answer. Air Force people--active military, Reserve, guard and 
civilian employees--are the key ingredient to our mission success. As 
such, I would consider the top challenges to be recruitment, retention, 
civilian force management, and preservation of quality military health 
care.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would plan to consult with the Secretary of 
the Air Force and other key leaders to immediately address these four 
priorities, establishing timelines and working toward comprehensive 
solutions. Also, I look forward to working with this committee and 
other members of Congress to ensure we have a supportable gameplan.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Air 
Force (Manpower and Reserve Affairs)?
    Answer. Not having served in that position, I am not able to 
identify any shortcomings at this time.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Not having served in that position, I am not prepared to 
identify those at this time.
                       officer management issues
    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest moral and ethical 
values.
    Do you believe the officer corps has confidence in the integrity of 
the officer promotion system in the Air Force?
    Answer. I wholeheartedly agree that integrity, character, moral and 
ethical values are critical qualities for those serving in the Air 
Force's senior leadership positions. Although I have not been involved 
personally in the Air Force officer promotion process, my initial 
impression is that the system appears to be working well.
    Question. If confirmed, what role do you, as Assistant Secretary of 
the Air Force (Manpower and Reserve Affairs), expect to play in the 
officer promotion system?
    Answer. From my viewpoint, the integrity of the officer promotion 
system is a critical responsibility of the Assistant Secretary. If 
confirmed, I will have the opportunity to work with the Secretary of 
the Air Force to provide oversight of every aspect of the promotion 
process. My goal will be to continue the fair and equitable 
consideration of all officers, to ensure confidence and integrity in 
the system, and to ensure boards are conducted in accordance with 
applicable laws and Department of Defense directives.
    Question. If confirmed, what role do you, as Assistant Secretary of 
the Air Force (Manpower and Reserve Affairs) expect to play in the 
general officer management and nomination process?
    Answer. I will have no active role in the general officer 
nomination process, but will support the Secretary of the Air Force, as 
needed, on any general officer issue.
    Question. If confirmed, what steps will you take to ensure that 
only the most highly qualified officers are nominated for promotion to 
general and flag officer rank?
    Answer. I understand that there are ongoing activities in the Air 
Force to institute a comprehensive leadership development system 
focused on core competencies needed for future aerospace leaders. If 
confirmed, I will ensure that leadership development continues to be 
high priority for the Air Force.
                        protected communications
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the Armed 
Forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes, most definitely.
    Question. If confirmed, what actions will you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If confirmed, I will work with the Secretary of the Air 
Force to ensure we continue to educate and communicate to the senior 
military leadership the provisions of this important section of the 
law.
                            operating tempo
    Question. The services have been very concerned in recent years 
about the impact of the pace of operations or ``optempo'' on the 
quality of life of our people in uniform and specifically on their 
willingness to reenlist.
    If confirmed, what steps do you plan to take to address the Air 
Force optempo concerns?
    Answer. Sustained TEMPO takes a toll on the personnel of any 
organization, and, if confirmed, I pledge my efforts to explore ideas 
that will help alleviate the burden on Air Force people. Having read 
about the new Aerospace Expeditionary Force (AEF), I am encouraged that 
the Air Force's senior leadership shares that same concern, as the AEF 
appears to provide greater predictability and stability for Air Force 
members.
                        recruiting and retention
    Question. For its Active Duty forces, the Air Force achieved its 
recruiting goal for 2000 and projects that it will meet its fiscal year 
2001 objective. However, it does not appear that the Air Force will 
meet its 2nd and 3rd term retention goals and will miss its required 
end strength by 4,100. When this shortage is combined with the Air 
Force request for an end strength increase of 1,800 for fiscal year 
2002, the Air Force may have a significant recruiting challenge next 
year.
    What steps will you take, if confirmed, to assist the Air Force in 
meeting its recruiting and retention goals?
    Answer. If confirmed, I look forward to focusing attention on this 
difficult challenge. Specifically, I believe that improving retention 
goes a long way to resolving recruiting challenges. Since retention 
decisions are generally family decisions in today's military, I'd like 
to address issues that impact both the member and his or her family.
    Question. What steps will you take, if confirmed, to assist the 
Reserve components in achieving their recruiting and retention goals?
    Answer. If confirmed, I will support the Reserve components 
recruiting and retention initiatives, including seeking sufficient 
funding for various quality of life and advertising programs and 
working to ensure a reasonable parity of benefits.
                       homosexual conduct policy
    Question. Do you support the current Department of Defense 
Homosexual Conduct Policy?
    Answer. Yes.
    Question. If confirmed, do you plan to make any changes to the 
basic policy or its implementation? If so, what changes will you 
propose?
    Answer. I am unaware of any need for change, however, if confirmed, 
I will work with DOD to ensure fair and equitable personnel policies 
for all members.
                  anthrax vaccine immunization program
    Question. DOD considers the biological agent anthrax to be the 
greatest biological weapon threat to our military force because it is 
highly lethal, easy to produce in large quantities, and remains viable 
over long periods of time. The anthrax vaccination program has been 
curtailed because of limited quantities of FDA-approved vaccine.
    If confirmed, will you support and enforce the Anthrax Vaccine 
Immunization Program if DOD reinstates it?
    Answer. Biological warfare is a very real threat and I believe we 
need to provide the best protection available to the men and women 
serving our Nation. If confirmed, I will pursue all avenues of medical 
readiness for our troops.
    Question. How do you believe the Air Force should respond to 
service members who refuse to take the vaccine when ordered to do so?
    Answer. If confirmed, I will work with the Secretary of the Air 
Force to ensure our policies are consistent and that each case is 
handled fairly and on its merits.
                           montgomery gi bill
    Question. Almost all new service members enroll in and contribute 
to the Montgomery GI Bill. Only about half use their benefits, and many 
do not use all of their entitlement. Many sailors and marines say they 
would like to stay in the Service, but feel they have to leave so that 
they can provide for the education of their spouses and children. Some 
of these service members might stay in the service if they could 
transfer all or a part of their unused entitlement to GI Bill benefits 
to family members in return for a service commitment. Service 
Secretaries could use this retention tool selectively, just as they use 
reenlistment bonuses.
    If confirmed, will you give serious consideration to how the Air 
Force could use the transfer of unused GI Bill benefits to family 
members as a retention tool and provide your thoughts on how we best do 
this?
    Answer. From my viewpoint, the significant contribution of the 
Montgomery GI Bill to the military, and to the Nation as a whole, 
cannot be overstated. I would be glad to consider the use of 
transferability and provide thoughts on the proposal to the committee, 
if confirmed.
    Question. If confirmed, will you give serious consideration to how 
the Air Force could use the award of U.S. Savings Bonds as a flexible 
means to enable sailors and marines to save money for the education of 
themselves and their dependents?
    Answer. If confirmed, I will be happy to consider how U.S. Savings 
Bonds may be used as a reenlistment incentive.
                       gender integrated training
    Question. Basic training, which may be the single most important 
phase of an individual's life in the military, is structured and 
defined differently by each Service.
    Do you believe the current DOD policy of allowing each of the 
Services to establish its own policy for gender integration in Basic 
Training is effective?
    Answer. From my understanding, gender integrated training has 
worked well for the Air Force and has been in effect for the last 20 
years. I believe that Service Secretaries must have the flexibility to 
determine the most effective training methods for their individual 
environment as they are held accountable for training, organizing and 
equipping their forces.
    Question. If confirmed, will you propose changes to Air Force 
policies? If so, what changes will you propose?
    Answer. I am unaware of the need for any changes.
                           concurrent receipt
    Question. Military retirees with disabilities incurred during their 
military service are eligible to receive military retired pay from the 
Department of Defense and veterans' disability compensation from the 
Department of Veterans' Affairs. However, current law requires that 
military retired pay be reduced by the amount of the veterans' 
benefits.
    If confirmed, would you support a change in the law to permit 
disabled military retirees to receive their full retired pay as well as 
their disability compensation?
    Answer. Any such change in the law would obviously carry a 
significant monetary impact and I have not had the opportunity to 
examine this in detail. I appreciate the importance of this issue to 
our disabled military retirees, and, if confirmed, will look into the 
merits of this proposed change.
           management of the congressional fellowship program
    Question. For the past several years, the committee has expressed 
concern about the management of legislative fellows by the military 
departments and the Department of Defense.
    If confirmed, will you review the Department's policies pertaining 
to the management of legislative fellows and provide the committee your 
assessment of which management reforms have been implemented and which 
require additional action?
    Answer. If confirmed, I will review the Department's policies and 
provide the committee an assessment.
    Question. What are your personal views on the value and current 
management of the legislative fellowship program within the Air Force?
    Answer. I have not had the opportunity to evaluate the management 
of the program within the Air Force. However, I do believe that 
legislative fellowship programs are valuable to the individual from a 
career broadening perspective, and that they enhance the important 
relationship between the military and Congress.
    Question. After completing their fellowships, are legislative 
fellows assigned to positions in which the experience and knowledge 
they gained during their fellowship are used effectively?
    Answer. I have no knowledge of individual assignment actions that 
may have taken place in the past. However, I would expect the 
experience gained by these individuals from a legislative fellowship 
should enhance their professional development and pay dividends for 
years to come, wherever they are assigned.
    Question. In your opinion, is it appropriate to bring a Reserve 
component member on Active Duty solely to participate in a legislative 
fellowship program?
    Answer. Yes. The Reserve components are a critical part of the 
Total Force and they would benefit from the same exposure and 
experience.
                  management of deployment of members
    Question. Increasing operational demands on military personnel 
resulted in enactment of Section 991 of Title 10, United States Code, 
and Section 435 of Title 37, United States Code. Those provisions 
require the Services to manage the deployments of members and, if 
operational necessity so dictates, to pay per diem compensation to 
members whose deployed periods exceed prescribed limits. Additionally, 
each Service Secretary is required to establish a system for tracking 
and recording the number of days that each member of the Armed Forces 
under the jurisdiction of the Secretary is deployed.
    Do you support the statutory framework set forth in the sections 
cited above? If so, do you believe any modifications to the law are 
necessary?
    Answer. I am not sufficiently familiar with the law to determine if 
modifications are necessary, but will look into the issue if confirmed.
    Question. What is your understanding of the ability of the Air 
Force to comply with these statutes and implement the prescribed 
tracking and recording system?
    Answer. It is my understanding that the Air Force is implementing a 
tracking and recording system that will comply with the full intent of 
the law.
                      armed forces retirement home
    Question. The Soldiers' and Airmen's Home in Washington, DC, and 
the Naval Home in Gulfport, Mississippi, provide unique services to 
eligible military retirees but have experienced problems in funding and 
management.
    Do you support an increase in the amount of money automatically 
deducted from the pay of Active Duty enlisted personnel as a means of 
better funding the retirement homes?
    Answer. I support the unique services provided by the Armed Forces 
Retirement Homes to retired military personnel. However, I have no 
current knowledge of the funding requirements and cannot advise on the 
appropriateness of budget adjustments.
    Question. If confirmed, what actions would you take to ensure the 
successful operation of the retirement homes?
    Answer. The retirement homes are an important commitment to our 
retirees, and, if confirmed, I will actively work to ensure their 
successful operation.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Assistant Secretary of the Air 
Force (Manpower and Reserve Affairs)?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator John Warner
    1. Senator Warner. Mr. Dominguez, at a recent Personnel 
Subcommittee hearing, the subcommittee received testimony from enlisted 
recruiters. These recruiters indicated that gaining access to high 
school directories and students on an equal basis with colleges and 
certain vendors (e.g., class ring salesmen) was difficult. Legislation 
was passed last year to respond to this problem. That legislation will 
become effective in July of next year.
    What will you do to ensure that high school and local school boards 
are aware of the legal provisions aimed at ensuring equal access by 
recruiters?
    Mr. Dominguez. Squadron Flight Chiefs, Superintendents, or 
Commanders of Air Force Recruiting Service will visit Air Force-
responsible high schools (those of which we have ASVAB responsibility) 
that do not provide equal access to recruiters and inform them of the 
provisions of law. The initial meeting will be with the high school 
principal or vice principal. In fact, this is a common practice for the 
Air Force Recruiting Service. For the Air Force, 92 percent of schools 
already provide equal access.
    In accordance with the provisions of the law, the Air Force 
Recruiting Service will schedule one-on-site visits between principals 
and Air Force colonels (O-6) beginning this summer for the remaining 
Air Force-responsible high schools that have not provided access.
                                 ______
                                 
    [The nomination reference of Michael L. Dominguez follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael L. Dominguez, of Virginia, to be an Assistant Secretary of 
the Air Force, vice Ruby Butler DeMesme.
                                 ______
                                 
    [The biographical sketch of Michael L. Dominguez, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Michael L. Dominguez
    Mr. Dominguez was born in Austin, Texas and, as an Air Force 
dependent, grew up at various U.S. Air Force bases around the world. He 
attended the United States Military Academy at West Point, New York and 
graduated in 1975 with a Bachelor of Science Degree. He was 
commissioned a Second Lieutenant, U.S. Army, and reported to Vicenza, 
Italy, where he served in a variety of assignments with the 1st 
Battalion, 509th Infantry (Airborne) and the Southern European Task 
Force.
    After leaving the Army in 1980, Mr. Dominguez went into private 
business and attended Stanford University's Graduate School of Business 
where he earned a Masters Degree in Business Administration. In 1983 he 
joined the Office of the Secretary of Defense's Program Analysis and 
Evaluation (PA&E) organization as a program analyst in PA&E's Theater 
Assessments Division. He prepared analyses of management systems and 
processes which led the Deputy Secretary to adopt landmark changes in 
the DOD's Planning, Programming, and Budgeting System that preceded by 
2 years many of the concepts and ideas embodied in the Goldwater-
Nichols Defense Reorganization Act of 1986. He conducted cost-
effectiveness analyses of alternative defense programs supporting the 
President's nation-building and counter-insurgency efforts in Central 
and South America. He also conducted cost-effectiveness analyses of 
DOD's force projection programs and programs designed to achieve DOD's 
military objectives in the Middle East and Southwest Asia. From 1988 to 
1991 Mr. Dominguez served as the Executive Assistant to the Assistant 
Secretary for Program Analysis and Evaluation and was responsible for 
the smooth and efficient operation of the Assistant Secretary's office. 
He also attended Harvard University's resident program for Senior 
Officials in National Security.
    Mr. Dominguez entered the Senior Executive Service in 1991 as 
PA&E's Director for Planning and Analytical Support. In this position, 
Mr. Dominguez oversaw the production of the DOD's long range planning 
forecast (the Defense Program Projection), exercised program oversight 
of DOD's $12 billion in annual information technology investments, and 
directed the modernization of PA&E's own computing, communications, and 
modeling infrastructure. He joined the staff of the Chief of Naval 
Operations in 1994 where he served as the Associate Director for 
Programming, and assisted in development of the Navy's multi-year 
program and annual budgets. He advised the Chief of Naval Operations on 
the selection of programs and program funding levels for incorporation 
into the Navy's funding plans.
    In 1997, Mr. Dominguez left the Federal Government to join a small 
technology services organization and in 1999 he become a Research 
Project Director at the Center for Naval Analyses where he organized 
and directed analyses of complex public policy and programs issues. In 
January 2001 he rejoined the staff of the Chief of Naval Operations as 
the Assistant Director, Space, Information Warfare, Command and Control 
Directorate, OPNAV (N\6\B).
    Personal awards include the Army Commendation Medal, the Defense 
Meritorious Civilian Service Medal on two occasions and the Defense 
Civilian Service Award. In 1998 Mr. Dominguez was designated a 
Meritorious Executive, a Senior Executive Service Presidential Rank 
Award.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Michael L. 
Dominguez in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Luis Dominguez.

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Manpower and Reserve 
Affairs).

    3. Date of nomination:
    July 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 4, 1953; Austin, TX.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sheila J. MacNamee.

    7. Names and ages of children:
    Michelle C. Dominguez, age 19; Michael C. Dominguez, age 17.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    U.S. Military Academy, West Point, NY; 7/71 to 6/75; BS; 6/75. 
Graduate School of Business, Stanford University, CA; 8/81 to 6/83; 
MBA; 6/83. J.F.K. School of Government, Harvard University, MA; 4/89 to 
5/90; Certificate of Completion; 5/90.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    01/01 to Present, Assistant Director, Space, Information Warfare, 
Command and Control; Chief of Naval Operations, 2000 Navy Pentagon, 
Washington, DC 20350;
    9/99 to 01/01, Project Director; Center for Naval Analyses, 4825 
Mark Center Drive, Alexandria, VA 22311;
    4/97 to 9/99, General Manager, Tech 2000 Inc., 520 Herndon Parkway 
#200, Herndon, VA 20170;
    10/94 to 4/97, Associate Director, Chief of Naval Operations, 2000 
Navy Pentagon, Washington, DC 20350;
    10/91 to 10/94, Director, Planning and Analytical Support, Office 
of the Director, PA&E, 2000 Defense Pentagon, Washington, DC 20350;
    11/88 to 10/91, Executive Assistant, Office of the Director, PA&E, 
2000 Navy Pentagon, Washington, DC 20350.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Assistant Scoutmaster, Boy Scouts of America;
    West Point Alumni Association;
    Stanford Business School Alumni Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    U.S. Army Commendation Medal, June 1980;
    Defense Meritorious Civilian Service Award, August 1988;
    Defense Civilian Service Award, January 1993;
    Defense Meritorious Civilian Service Medal, September 1994;
    Department of the Navy Superior Civilian Service Award, April 1997;
    Senior Executive Service Presidential Rank Award (Meritorious 
Executive), January 1998.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Michael L. Dominguez.
    This 13th day of July, 2001.

    [The nomination of Michael L. Dominguez was reported to the 
Senate by Chairman Levin on August 2, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2001.]
                              ----------                              

    [Prepared questions submitted to Paul Michael Parker by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   July 20, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Paul Michael Parker. 
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support full implementation of these reforms. I 
believe that the objectives of the Goldwater-Nichols Act most directly 
relevant to the mission of the Assistant Secretary of the Army (Civil 
Works) are as important today as when the act was passed. They provide 
for more efficient and effective use of defense resources and they 
improve the management and administration of the Department of Defense 
(including the Department of the Army).
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. It is my understanding that the Army has fully implemented 
the Goldwater-Nichols reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The important goals of Congress in enacting these defense 
reforms, as reflected in Section 3 of the Goldwater-Nichols Department 
of Defense Reorganization Act, can be summarized as strengthening 
civilian control; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; and enhancing the effectiveness of 
military operations and improving the management and administration of 
the Department of Defense.
    Question. Do you agree with these goals?
    Answer. Yes, I agree with the goals of Goldwater-Nichols.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I have not yet had an opportunity to consider whether 
changes to Goldwater-Nichols may be warranted.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Civil Works?
    Answer. The duties and functions of the Assistant Secretary of the 
Army for Civil Works are specified in Section 3016 of Title 10 of the 
United States Code and Department of the Army General Orders No. 1, 
dated January 12, 2001. Section 3016 of Title 10 states that the 
Assistant Secretary of the Army (Civil Works) ``shall have as his 
principal duty the overall supervision of the functions of the 
Department of the Army relating to programs for conservation and 
development of the national water resources, including flood control, 
navigation, shore protection, and related purposes.'' General Order No. 
1 further specifies that this includes:

        <bullet> developing, defending, and directing the execution of 
        the Army Civil Works policy, legislative, and financial 
        programs and budget;
        <bullet> developing policy and guidance for and administering 
        the Department of the Army regulatory program to protect, 
        restore, and maintain the waters of the United States in the 
        interest of the environment, navigation, and national defense;
        <bullet> developing policy guidance and conducting oversight 
        for the U.S. Army Corps of Engineers activities in support of 
        other Federal and non-Federal entities, except those activities 
        that are exclusively in support of the United States military 
        forces;
        <bullet> in coordination with the Deputy Under Secretary of the 
        Army (International Affairs), developing policy for and 
        directing the foreign activities of the U.S. Army Corps of 
        Engineers, except those foreign activities that are exclusively 
        in support of United States military forces overseas; and
        <bullet> overseeing the program and budget of Arlington 
        National Cemetery and Soldiers' and Airmen's Home National 
        Cemetery.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have always believed that progress is achieved and 
problems are solved by collaborative efforts of many talented and 
dedicated people. In bringing this fundamental philosophy to the 
position of Assistant Secretary of the Army (Civil Works), I would 
establish a professional environment in which communication and 
cooperation are the watchwords.
    In the 10 years during which I had the honor of representing the 
Fourth District of Mississippi in the United States House of 
Representatives, I applied my commitment to finding practical, 
realistic solutions to problems and issues of importance to my 
constituents. This common-sense approach to issues also stood me in 
good stead in my role as a member of several House Committees dealing 
with very difficult issues of national significance. I have served on 
five different House Committees whose responsibilities span the range 
of issues I can be expected to face as Assistant Secretary: Budget 
Committee, Appropriations Committee, Transportation and Infrastructure 
Committee; Education and Workforce Committee; and Veterans' Affairs 
Committee. I served on both Energy and Water Development and Military 
Construction Appropriations Subcommittees, so I know both the Civil 
Works and military programs aspects of the Corps of Engineers role in 
the Army.
    One of the principal skills I have developed over my career in the 
public sector is the ability to work effectively with government and 
industry leaders, non-governmental organizations, Members of both 
parties in Congress, and with officials in the Executive Branch.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army for Civil Works?
    Answer. Yes, I intend to take several actions to enhance my 
expertise as Assistant Secretary of the Army (Civil Works). If 
confirmed, I will travel to each Corps of Engineers division to see 
first-hand many of the infrastructure development and environmental 
restoration projects. My goal is to gain a fuller understanding of the 
issues that surround the planning, design, construction, operation and 
maintenance of these projects. I also intend to reach out to Members of 
Congress, the other Federal agencies, state and local interests, study 
and project sponsors, and other stakeholders to gain a deeper 
appreciation of their perspectives in areas of mutual concern. If 
confirmed, I also will develop a closer working relationship with other 
offices within the Department of the Army and the Department of Defense 
in order to make better use of resources and advance the interests of 
the Civil Works program.
    I also will work closely with the Chief of Engineers and the 
Director of Civil Works to ensure that I am fully informed and prepared 
to address the important issues I would oversee as Assistant Secretary 
of the Army (Civil Works). I look forward to the challenge and 
experience this position affords if confirmed.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If confirmed, I expect to be asked to carry out the duties 
and functions of the Assistant Secretary of the Army (Civil Works) as 
articulated in General Orders Number 1, dated January 12, 2001.
                             relationships
    Question. In carrying out your duties, how will you work with the 
Secretary of the Army?
    Answer. If confirmed, I expect to work closely with the Secretary 
of the Army in furthering the goals and priorities of the President. 
However, consistent with the General Orders, I expect the Secretary to 
rely on me to oversee the Civil Works program of the Army Corps of 
Engineers and the programs of Arlington National Cemetery and Soldiers' 
and Airmen's Home National Cemetery.
    Question. How will you work with the Deputy Under Secretary of 
Defense (Installations and Environment)?
    Answer. If confirmed, I will work to form a close and constructive 
relationship with the Deputy Under Secretary of Defense (Installations 
and Environment) in areas of shared responsibility.
    Question. How will you work with the Deputy Under Secretary of 
Defense (Logistics, Materiel Readiness)?
    Answer. If confirmed, I will work to form a close and constructive 
relationship with the Deputy Under Secretary of Defense (Logistics, 
Materiel Readiness) in areas of shared responsibility.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Civil Works?
    Answer. Communities across the country rely on Army Corps of 
Engineers water resources projects to reduce flood damages, to enable 
efficient competition in world trade, to provide needed water and 
power, and to protect and restore our rich environmental resources. The 
Civil Works program provides a sound investment in the Nation's 
security, economic future, and environmental stability. I believe the 
greatest continuing water resources challenge is to find sustainable 
ways to strengthen the Nation's economy, while protecting and restoring 
unique water and related land resources for the benefit of future 
generations.
    I feel that two other challenges the Corps faces are the need to 
maintain its existing infrastructure and to repair damages to the 
natural environment. I believe that an efficient water transportation 
system is critical if we are to remain competitive in international 
trade. Our system of ports and inland waterways must enable us to 
efficiently transport goods in an environmentally acceptable manner. 
Flooding also continues to threaten communities. We must use the Corps 
limited resources not only to respond to natural disasters when floods 
and hurricanes occur, but also to work more creatively with nature to 
prevent or reduce flood damages. Flood damages are a growing drain on 
the Nation's economy, and we must find ways to reduce them.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I believe that we must all work together to define the 
appropriate role for the Corps of Engineers in addressing these 
problems. The challenges the Corps faces are complex, and there are 
many difficult decisions to make. It is of paramount importance that we 
bring all interests to the table and that all have a voice in the 
development of solutions to our Nation's problems. The Corps must 
engage in an open and cooperative dialogue with Congress, other Federal 
agencies, States, Tribes and local governments on the many important 
challenges that the Army Corps of Engineers faces.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Army 
for Civil Works?
    Answer. The Assistant Secretary of the Army for Civil Works has 
wide-ranging responsibilities arising from the varied purposes of the 
Civil Works Program. I believe that the Assistant Secretary must set 
clear policy and direction so the Corps can effectively execute its 
important Civil Works mission.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I have not yet developed a specific plan. If confirmed, one 
of my first priorities will be to meet with the Chief of Engineers and 
others in the administration and Congress to seek their input and to 
develop a plan for how the Corps can best meet the Nation's water 
resources needs.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues that must be addressed by the Assistant Secretary of 
the Army for Civil Works?
    Answer. If confirmed as Assistant Secretary of the Army for Civil 
Works I would work to improve the management and administration of the 
Army Civil Works Program and the Army's national cemetery program and 
would seek ways to more efficiently use Army's resources in the 
development and execution of these programs.
                        army corps of engineers
    Question. The Army Corps of Engineers does not currently have a 
system in place to ensure the independent peer review--by experts from 
outside the agency--of studies supporting major projects before such 
projects are approved.
    Do you believe that it would be appropriate to institute such an 
independent peer review program? Why or why not?
    Answer. I believe that an independent peer review would have value. 
However, we must find a way to do this so it does not needlessly 
increase the cost of projects or delay decisions. Any independent peer 
review program should complement both the existing technical and policy 
reviews conducted by the Corps and the reviews conducted by the 
stakeholders, the public and other agencies. Moreover, we must find a 
way to accomplish the review when it is most effective, that is, as an 
integral part of the Corps planning process.
    Question. In recent years, the senior military leadership of the 
Army Corps of Engineers is alleged to have placed pressure on Corps 
economists to change economic assumptions during a study of navigation 
projects on the Mississippi and Illinois Rivers. The Office of Special 
Counsel found ``substantial likelihood'' that senior Corps officials 
violated regulations and engaged in a ``gross waste of funds'' in 
connection with these projects.
    What is your view of these allegations?
    Answer. I have no personal knowledge of the facts surrounding these 
allegations; however, it is my understanding that all matters relating 
to these allegations have been resolved. The Chief of Engineers is 
considering changes in the management and scope of the navigation study 
in response to the Army Inspector General report and the study 
conducted by the National Research Council.
    Question. What is your view of the degree of independence that 
should be provided to the economists charged with assessing the 
economic viability of Corps projects and the role of the senior 
civilian and military leadership of the Corps in reviewing the work of 
those economists?
    Answer. I believe the technical and policy reviews conducted by the 
Corps of Engineers are an effective way to manage feasibility studies. 
The process ensures that the many engineers, economists, biologists and 
other professionals who are involved in those studies are afforded an 
appropriate level of independence.
    Question. In testimony earlier this year by Lieutenant General 
Flowers before congressional committees, he indicated that if the Army 
Inspector General had had the benefit of the National Academy of 
Sciences' review of the Corps' Upper Mississippi Navigation Study and 
whistleblower allegations, the Inspector General would have taken an 
entirely different view of the proceedings.
    Do you agree with Lieutenant General Flowers' opinion? Please 
explain your answer.
    Answer. It is my understanding that the Army Inspector General and 
the National Research Council were evaluating different aspects of the 
conduct of the Upper Mississippi River Navigation Study. I am not in a 
position to speculate on whether the Inspector General would have 
reached different conclusions because of the National Academy of 
Sciences' review.
    Question. The National Academy of Sciences' report found that the 
Army Corps of Engineers used faulty models to forecast future demand 
for barge traffic and to estimate benefits. The Academy determined that 
predictions of future grain exports were overestimated and did not 
provide a way to account for key factors such as policy changes and 
weather that affect global markets. The report urged consideration of 
the less expensive option of improved scheduling of barges and 
recommended that future studies by the Army Corps of Engineers be 
subject to review by outside experts.
    Do you believe that the criticism of the Army Corps of Engineers in 
the National Academy of Sciences' report is valid?
    Answer. The National Academy of Sciences/National Research Council 
recognized the challenges the Corps faced in developing the projections 
and models used in the study. They complimented the Corps for 
attempting to advance forecast modeling. I believe that the Council 
provided extremely valuable and constructive criticism of the Corps 
efforts. I understand the Corps is responding by making changes to the 
study.
    Question. What is your view of the recommendations of the National 
Academy of Sciences' report?
    Answer. I support recommendations of the National Academy of 
Sciences/National Research Council report.
    Question. A February 24, 2000, article in the Washington Post 
reported that the senior military leadership of the Corps developed a 
``Program Growth Initiative'' providing financial targets for each of 
the agency's activities and divisions, without consulting the civilian 
leadership of the Department.
    What is your view of this initiative?
    Answer. In light of the current Civil Works construction backlog, 
reported to be $40 billion to complete, it is my feeling that the Corps 
has no need to grow its program. However, I do believe that there 
should be honest debates about what activities the Corps should be 
involved in and their priority.
    Question. What is your view of the role of the civilian and 
military leadership of the Army Corps of Engineers in developing goals 
for Corps programs and presenting these goals to the legislative 
branch?
    Answer. If confirmed, it is my intent to provide the civilian 
leadership needed to enable the Corps to be an even more valuable asset 
to the Nation. Representing the administration, I will work with 
Congress to set the proper direction for the Corps.
    Question. On March 30, 2000, Secretary Caldera announced a series 
of reforms to strengthen civilian oversight and control over the Army 
Corps of Engineers civil works program. The Secretary's memorandum 
stated: ``The [Assistant Secretary] shall have full authority to 
establish the final position of the Department of the Army on any 
policy, programmatic, legislative, budgetary, or other organizational 
matter involving or affecting the civil works functions and their 
implementation, unless directed otherwise by me.''
    What is your view of this memorandum?
    Answer. It is my understanding that the Assistant Secretary of the 
Army for Civil Works is responsible for the overall supervision of the 
Army's Civil Works program, including programs for conservation and 
development of the national water resources, flood control, navigation, 
and shore protection. The complex issues that arise in this area demand 
a close, professional relationship between the Assistant Secretary and 
the Chief of Engineers, based on mutual respect, trust, cooperation and 
full communication. If confirmed, I am committed to establishing and 
maintaining such a relationship with the Chief, in order to respond 
effectively to the President's priorities and the policy directives of 
Congress.
    Question. In a press conference in April of this year, Deputy 
Assistant Secretary of the Army for Management and Budget, Claudia L. 
Tornblom, indicated that the Army is considering options for 
strengthening the ability of the Office of the Assistant Secretary for 
Civil Works to ensure policy oversight of project planning.
    What are these options? Do you believe that they are necessary and 
that they are sufficient to ensure policy oversight?
    Answer. I believe Deputy Assistant Secretary Tornblom was referring 
to improvements noted by President Bush in his Fiscal Year 2002 Budget 
Blueprint. It is my understanding that no final decisions have been 
made yet on how to proceed. If confirmed, I intend to work with the 
Chief of Engineers to identify the correct amount of oversight and 
project review appropriate to be conducted by the Office of the 
Assistant Secretary for Civil Works and an efficient means of achieving 
it. Given the issues that have arisen and the importance of restoring 
the credibility of the Army Corps of Engineers, I do believe it is 
necessary to strengthen policy oversight of Civil Works project 
planning.
    Question. What is your view of the relative authority of the Chief 
of Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works function of the Army Corps of 
Engineers?
    Answer. My view of the relative authority of the Chief of 
Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works function of the Army Corps of 
Engineers follows:
    Question. Secretary of Defense
    Answer. As head of the Department of Defense, the Secretary of 
Defense has full authority, direction and control over all its 
elements. He exercises this power over the Corps of Engineers through 
the Secretary of the Army, whose responsibility for, and authority to 
conduct, all affairs of the Army is subject to the authority, direction 
and control of the Secretary of Defense. If confirmed, I will cooperate 
fully with the Secretary of Defense in fulfilling the administration's 
national defense priorities and efficiently administering the Corps of 
Engineers in accordance with the policies established by the Office of 
the Secretary of Defense.
    Question. The Secretary of the Army
    Answer. As head of the Department of the Army, the Secretary of the 
Army is responsible for, and has the authority necessary to conduct, 
all affairs of the Department of the Army. He may assign such of his 
functions, powers and duties as he considers appropriate to the Under 
Secretary of the Army, as well as the Assistant Secretaries of the 
Army, and require officers of the Army to report to these officials on 
any matter.
    Question. The Chief of Staff of the Army
    Answer. The Chief of Staff of the Army performs his duties under 
the authority, direction and control of the Secretary of the Army and 
is directly responsible to the Secretary. The Chief of Staff also 
performs the duties prescribed for him by law as a member of the Joint 
Chiefs of Staff. If confirmed, I will establish and maintain a close, 
professional relationship with the Chief of Staff. I will communicate 
with him directly and openly as he performs his prescribed duties.
    Question. The Assistant Secretary of the Army for Civil Works
    Answer. The Assistant Secretary of the Army for Civil Works is 
principally responsible for the overall supervision of the Army's civil 
works program, including programs for conservation and development of 
the national water resources, flood control, navigation, and shore 
protection. The complex issues that arise in this area demand a close, 
professional relationship between the Assistant Secretary and the Chief 
of Engineers, based on mutual respect, trust, cooperation and full and 
open communication. If confirmed, I am committed to establishing and 
maintaining such a relationship with the Chief, in order to respond 
effectively to the President's priorities and the policy directives of 
Congress.
    Question. The Chief of Engineers
    Answer. As a member of the Army Staff, the Chief of Engineers 
reports to the Chief of Staff, through the Vice Chief of Staff, with 
respect to military matters. The Chief of Engineers reports to the 
Assistant Secretary of the Army (Civil Works) on civil works functions 
of the Army, including those relating to the conservation and 
development of water resources and the support for others program. The 
Chief of Engineers also reports to the Assistant Secretary of the Army 
(Civil Works) with respect to most other matters for which the Chief 
may be responsible. In the area of installation activities, the Chief 
reports to the Assistant Secretary of the Army (Installations & 
Environment), who has principal responsibility for all Department of 
the Army matters related to installations and the environment.
    Question. Do you believe that environmental restoration projects 
are part of the central mission of the Army Corps of Engineers?
    Answer. Yes. I believe that projects and programs that protect and 
restore the natural environment are a priority to the American people 
and a central mission for the Corps of Engineers. Ecosystem protection 
and restoration projects, projects that reverse the effects of prior 
human activities, have become a priority purpose of the Corps' Civil 
Works Program. Importantly, this current status has been achieved 
because of changing national priorities, rightfully setting the 
direction of the Civil Works Program.
    Question. In your view, how can the Corps be more responsive to 
environmental concerns?
    Answer. I believe the Corps can and must carry out its missions in 
an environmentally responsible manner. The Corps has a long record of 
accomplishing its mission in accordance with environmental laws and 
using the National Environmental Policy Act process to obtain input 
from interested parties and agencies. This approach will continue to 
lead to more environmentally sensitive projects and projects 
specifically for environmental restoration and protection. Under the 
Regulatory Program processes are in place to ensure that permit 
applicants avoid or minimize environmental impacts and compensate for 
unavoidable impacts. In those instances where impacts to significant 
resources cannot be avoided, a mitigation plan for the impacts will be 
developed.
    Question. In your view, does the Corps need to make fundamental 
changes in the way it operates?
    Answer. No. I believe the Corps is a fundamentally sound 
organization. It has strong technical abilities and has proven time and 
time again that it can solve difficult problems. It has served this 
Nation for many years and can be counted on to continue to do so in the 
future. However, based on recent findings, the Corps does need to re-
examine the way it manages policy and technical reviews in order to 
ensure projects will receive broad support. Also, I feel that the Corps 
must find better, more effective ways of communicating with the broad 
range of interests that have a stake in its projects.
                            wetlands permits
    Question. Section 404 of the Clean Water Act requires landowners or 
developers to obtain U.S. Army Corps of Engineers permits to carry out 
activities involving disposal of dredged or fill material into 
navigable waters of the United States, including wetlands. Controversy 
has grown over the extent of Federal jurisdiction and the impact on 
private property, the burdens and delay of permit procedures, and roles 
of Federal agencies and states in issuing permits. Some landowners 
maintain that changes are needed to lessen the burdens of the 
regulatory program. Other landowners believe they should be compensated 
if adversely affected by regulatory ``takings'' due to Section 404 
requirements, particularly since an estimated 74 percent of all 
remaining wetlands are on private lands.
    If confirmed, how would you propose to address such issues in your 
role as assistant secretary?
    Answer. It is my understanding that the objective of the Army's 
Regulatory Program is to provide fair, flexible and efficient 
evaluations for activities involving waters of the United States. The 
Corps balances development objectives with the Clean Water Act's 
requirements to protect the Nation's aquatic ecosystems. The Corps 
works with permit applicants to allow proposed activities to be 
authorized, but in ways that are not contrary to the public interest 
and that protect important aquatic resources. I believe that we can 
continue to achieve our environmental protection goals while addressing 
public concerns about regulatory burdens and delays. For example, if 
confirmed, I will work with the Corps over the coming months to see 
that the Nationwide permits are reissued. Nationwide permits are 
designed to provide project authorizations with little or no paperwork. 
If confirmed, I will work to ensure that we continue to carefully 
consider all comments we receive from other Federal agencies, but make 
sure that the public understands that the Corps of Engineers runs the 
program and makes the permit decisions, as provided for by law.
    Question. The General Accounting Office has found significant 
problems with the Army Corps of Engineers program for mitigation of 
wetlands losses. Last month, the National Academy of Sciences released 
a report in which it concluded that this program has fallen short of 
the stated goal of no net wetlands loss.
    What is your view of the findings of the General Accounting Office?
    Answer. I have not yet had the opportunity to review the findings 
of this report. If confirmed, one of my first priorities will be to 
discuss this matter with the Chief of Engineers and others in the 
administration and Congress to seek their input and to develop a plan 
for addressing the recommendations of the report.
    Question. What is your view of the findings of the National Academy 
of Sciences report?
    Answer. I have not yet had the opportunity to examine the report. 
If confirmed, I plan to meet with the Corps to seek their input and to 
develop a plan for addressing the report recommendations.
    Question. Do you support the goal of no net wetlands loss?
    Answer. Yes. The goal of ``no overall net loss of wetlands'' was 
established by President George Bush in the early 1990s. It is a 
programmatic goal for the Regulatory Program, and Corps data clearly 
indicates that the Regulatory Program has exceeded this goal by working 
with permit applicants to avoid and minimize impacts and by requiring 
compensatory mitigation for unavoidable impacts. I understand the Corps 
has required more than one-for-one mitigation for permitted wetland 
loss (during the period 1993 to 2000 the annual average permitted loss 
nationwide was 24,000 acres and the annual average mitigation required 
was 42,000 acres).
    Question. Do you believe that the Army Corps of Engineers has given 
wetlands mitigation efforts the priority and attention that it 
deserves?
    Answer. I believe that the Corps has worked hard over the years to 
develop mitigation approaches that offset the losses of wetland 
functions, such as mitigation banks and in lieu fee operations, while 
being fair and reasonable to the regulated public. However, I 
understand the Corps intends to focus more attention on ensuring 
compliance with the mitigation conditions for permitted activities.
    Question. The Army Corps of Engineers issues general permits to 
developers for draining and filling wetlands. Last year, the rules for 
this program were tightened to limit the types of activities that may 
be conducted pursuant to a general permit. The Corps is currently 
reevaluating the new rules.
    What is your view of recently adopted changes to the rules 
governing the issuance of general permits by the Army Corps of 
Engineers?
    Answer. I have not yet had the opportunity to review the changes 
that were made to the Nationwide permit program last year. If 
confirmed, I will discuss this matter with the Chief of Engineers in 
order to understand the impacts of these changes on the regulated 
public and on the Army's charge to protect the Nation's aquatic 
resources
    Question. What is your view of proposed revisions to those rules?
    Answer. I understand that most of the Nationwide permits will 
expire in February in 2002 unless they are reissued. If confirmed, I 
will work with the Corps as they publish draft and final permit 
packages for public review and comment. I have not yet been briefed on 
proposed changes, but will make this a priority should I become the 
Assistant Secretary of the Army for Civil Works.
                       use of military personnel
    Question. Like many Federal agencies, the Corps of Engineers 
workload is declining in all areas other than operations and 
maintenance of facilities. Most of this work is done by civilian 
contractors or civilian employees.
    What role do you see for the hundreds of military Corps of 
Engineers personnel currently working in the districts and divisions?
    Answer. It is my understanding that there are approximately 275 
Active Duty military personnel serving in Districts, Divisions and 
Headquarters of the Army Corps of Engineers. Although they represent 
less than 1 percent of the 35,000 personnel within the Corps, they 
serve a variety of important roles. First, they provide experienced 
organizational leadership at the District level and higher. Second, 
they represent the organization's fundamental linkage to the Army. 
Third, the Army, in conducting operations that range from stability and 
support to actual war, has successfully leveraged the experience 
obtained in managing the large construction projects and response to 
natural disasters characteristic of the Civil Works programs.
                     state water quality standards
    Question. In the past, the United States Army Corps of Engineers 
has not been required to meet state water quality standards in 
constructing and operating its water resources projects.
    Do you believe that the Army Corps of Engineers should be required 
to meet state water quality standards in constructing and operating 
Corps projects in order to protect fishery resources?
    Answer. Yes, I do.
    Section 401 of the Clean Water Act requires that the Army Corps of 
Engineers obtain certification from states, or interstate water control 
agencies, that a proposed water resources project is in compliance with 
established effluent limitations and water quality standards. If a 
state in question has assumed responsibilities for the Section 404 
regulatory program, a state 404 permit would be obtained which would 
serve as the certification of compliance.
    Section 404r of the Clean Water Act waives the requirement to 
obtain the state water quality certification if the information on the 
effects of the discharge are included in an Environmental Impact 
Statement on the proposed project submitted to Congress before the 
discharge takes place and prior to either authorization of the project 
or appropriation of construction funds. Nevertheless, it is the policy 
of the Corps to seek state water quality certification rather than 
utilizing the Section 404r exemption provision.
                             relationships
    Question. If confirmed, how do you propose to ensure a reasonable 
balance between your oversight authority and the program execution 
responsibilities of the Chief of Engineers?
    Answer. If confirmed, I propose to ensure a reasonable balance 
between my oversight authority and program execution responsibilities 
of the Chief of Engineers through development of a close professional 
relationship with the Chief based on mutual respect, trust, cooperation 
and communication. If confirmed, I am committed to establishing and 
maintaining such a relationship in order to respond effectively to the 
President's priorities and the policy directives of Congress.
                       consultation with congress
    Question. In performing the duties of Assistant Secretary of the 
Army for Civil Works, you will be confronted with difficult, 
politically charged issues.
    How would you view your role in addressing such matters with 
Congress?
    Answer. I would view my role in addressing difficult, politically 
charged issues as one of facilitating full and open communication among 
all interested parties, be they others within the Executive Branch, 
Members of Congress, or the public. In performing my statutory duties, 
if confirmed, I intend to appropriately involve all interested parties 
and make decisions that take into account all relevant information.
    Question. Specifically, would you plan to consult with Congress 
prior to issuing any secretarial decisions or announcements regarding 
reforms that may affect the execution of the civil works functions of 
the Army Corps of Engineers?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Civil Works?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
Questions Submitted by Senator Carl Levin on behalf of Senator Richard 
                               J. Durbin
                   mccook and thorton reservoirs, il
    1. Senator Levin. As you begin to address the wide array of water 
resources needs of this country, I would like to direct your attention 
to a very significant regional project in the Chicagoland area which is 
critical in addressing the very real flood protection and water quality 
issues facing Chicago and its suburban surroundings.
    The McCook and Thornton Reservoirs are part of the Corps of 
Engineers' Chicago Underflow Plan (CUP) and were fully authorized in 
the Water Resources Development Act of 1988 (P.L. 100-676). The CUP is 
a comprehensive flood protection and water quality protection plan for 
the Chicago metropolitan area. The State of Illinois, Cook County, the 
City of Chicago are all supporters of the project and the Metropolitan 
Water Reclamation District of Greater Chicago is the local sponsor for 
the CUP. The CUP, which includes a series of underground tunnels and 
storage reservoirs, was established in order to address the diminished 
capacity of the area's waterways to handle sewer overflow discharges. 
This system has been enormously effective in achieving its goals as 
evidenced by the elimination of 86 percent of combined sewage pollution 
in a 325 square mile area. The result of this progress is the dramatic 
increase in water quality of the Chicagoland waterways and the 
protection of Lake Michigan, our drinking water source. However, the 
job is far from complete.
    The overall project, which is the Tunnel and Reservoir Plan (TARP), 
consists of 110 miles of tunnels, which have been under construction 
since the 1970s and now almost complete, by the U.S. Environmental 
Protection Agency. The project's other significant component, the 
McCook and Thornton Reservoirs are under construction by the Corps and 
will provide the comprehensive solution to the flood control and water 
quality needs by providing significant stormwater storage capacity. 
Once completed, these reservoirs will provide a storage capacity of 
15.3 billion gallons and will produce annual benefits of $104 million. 
This translates into protection of over 500,000 homeowners from 
flooding. Delaying this project results in lost benefits and additional 
inflation costs of $120 million per year. This is unacceptable.
    Mr. Parker, is this the type of project you will be supporting and 
will you commit to providing full funding under the Corps' program to 
keep the project on schedule?
    Mr. Parker. I do support this type of project and, if confirmed, I 
assure you that I will give McCook and Thornton Reservoirs full 
consideration during the annual budget process.

    2. Senator Levin. Mr. Parker, in order for you to better understand 
the complexity and uniqueness of the McCook and Thornton Reservoir 
Project and the significant positive impact it is having not only on 
the health and safety of Chicago land, but on the local and regional 
economy, as well, will you agree to come to Chicago in the near future 
to see this important project?
    Mr. Parker. If confirmed, I would welcome an opportunity to visit 
Chicago to see this project so that I can gain a better appreciation of 
its complexity and its importance to the Chicago area.

                         chicago shoreline, il
    3. Senator Levin. Mr. Parker, the Chicago Shoreline project is 
addressed in a 1999 Project Cooperation Agreement (PCA) signed by the 
City of Chicago, the Chicago Park District, and the Corps. The PCA 
provides a roadmap for a shared work and funding approach for the 
project. In short, it sets a 2005 completion date. Will you agree to 
personally review the Chicago Shoreline PCA and to work with OMB to 
ensure full funding and continued federal cooperation for this 
important project?
    Mr. Parker. If confirmed, I will review the PCA, as you request, 
and will work to ensure continued funding and federal cooperation to 
the extent possible within overall budget priorities and funding 
constraints.
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton
    project backlog and funding priorities (addressing the backlog)
    4. Senator Dayton. Mr. Parker, the Corps of Engineers has an 
enormous backlog (over $50 billion) of already authorized projects that 
have received some construction funding.
    How would you address this backlog?
    Mr. Parker. If confirmed, I would work closely with OMB and 
Congress to seek increased funding to reduce the backlog. I would also 
work with Congress and within the administration to consider other 
options to reduce the backlog. This could include a review of the 
current deauthorization process to deauthorize projects that do not 
satisfy today's needs or do not have adequate local support. Limiting 
the number of new authorizations could also be considered. All of these 
considerations would necessitate full consultation with the appropriate 
committees of the House and Senate.

    project backlog and funding priorities (budget recommendations)
    5. Senator Dayton. Mr. Parker, how would you develop your 
recommendations for which projects should receive study and 
construction funding in the Corps' proposed budget?
    Mr. Parker. If confirmed, I would give priority to the efficient 
continuation and completion of efforts that had been initiated in prior 
years and to properly operating and maintaining the existing water 
resources infrastructure. I also would propose funding for new studies 
and projects that provide the highest return or meet the most urgent 
water resources needs.

    project backlog and funding priorities (project deauthorization)
    6. Senator Dayton. Mr. Parker, should any projects be deauthorized?
    Mr. Parker. Yes. As I understand it, hundreds of projects already 
have been deauthorized under a process established by Congress in 1986 
and modified in 1996. This process, or something like it, should 
continue so that projects that do not meet today's water resources 
needs are deauthorized. However, any deauthorization should occur only 
after consultation with Congress. 

   project backlog and funding priorities (deauthorization criteria)
    7. Senator Dayton. Mr. Parker, what would you recommend for 
criteria for determining which projects should be deauthorized to 
reduce this huge backlog?
    Mr. Parker. If confirmed, I would need to give this matter careful 
study. That said, if there are authorized projects that would not 
survive scrutiny using today's standards and do not provide 
satisfactory solutions to today's water resources problems, such 
projects would be prime candidates for deauthorization.

       environmental restoration (part of corps central mission)
    8. Senator Dayton. Mr. Parker, do you believe that environmental 
restoration projects are part of the Corps' central mission?
    Mr. Parker. Yes, I believe that projects and programs that protect 
and restore the natural environment are a priority for the American 
people and a central mission for the Corps of Engineers. Ecosystem 
restoration and protection projects, projects that reverse the effects 
of prior human activities, have become a priority purpose of the Corps' 
Civil Works Program because of changing national priorities.

             environmental restoration (florida everglades)
    9. Senator Dayton. Mr. Parker, do you support funding for the Corps 
work on the Everglades?
    Mr. Parker. Yes. The Everglades is truly a national treasure and I 
believe the Army Corps of Engineers, in partnership with the State of 
Florida, and working with the Department of the Interior and others, 
have worked hard in developing a long-term ecosystem restoration plan 
that will provide for both ecological and economic demands for water in 
South Florida for the next 50 years. The entire region has experienced 
growth, and this growth has exerted tremendous pressure on the natural 
resources of the region, especially the Everglades. It is my 
understanding that the plan to be implemented over the next 25 years 
will improve the health of over 2.4 million acres of South Florida 
ecosystem, including Everglades National Park, Lake Okeechobee, and 
Florida and Biscayne Bays.
    Timely implementation and funding of the Comprehensive Everglades 
Restoration Plan will ensure the protection of the Everglades and 
future water supply for the people of South Florida. One of my first 
priorities, if I am confirmed, will be to discuss this plan's 
implementation with the Chief of Engineers and others in the 
administration and Congress, state and local agencies, project 
sponsors, and other stakeholders, to gain a deeper understanding of the 
issues and funding needs involving implementation of this important 
initiative.

environmental restoration (salmon restoration in the pacific northwest)
    10. Senator Dayton. Mr. Parker, do you support salmon restoration 
in the Pacific Northwest?
    Mr. Parker. Yes, I fully support rebuilding populations of salmon 
in the Pacific Northwest that are listed under the Endangered Species 
Act (ESA). I recognize that this requires a concerted effort by many 
government agencies and other interests to improve and better manage 
habitat, harvest, hatcheries and hydropower. If confirmed, I will use 
the available authorities and funding to advance this effort.

          wetlands mitigation backlog (mitigation commitments)
    11. Senator Dayton. Mr. Parker, the law requires the Corps to do 
wetlands mitigations either prior to or concurrently with construction 
of its civil works projects. Based on reports, the Corps has failed to 
complete about two-thirds of the mitigation it has committed to 
complete.
    Mr. Parker. It is my understanding also that the Corps is required 
to accomplish fish and wildlife mitigation either prior to or 
concurrently with construction of its water resources projects. I am 
not familiar with the reports you refer to that indicate that the Corps 
has failed to complete about two-thirds of the mitigation it has 
committed to complete. The Corps has informed me that, while there is a 
backlog of uncompleted mitigation, something over two-thirds of 
required mitigation has been accomplished. If I am confirmed, I will 
make it a priority to work with the Corps and Congress to more 
precisely identify the fish and wildlife mitigation backlog, and 
develop a strategy for addressing this important issue.

          wetlands mitigation backlog (addressing the backlog)
    12. Senator Dayton. Mr. Parker, are you committed to addressing 
this mitigation backlog? How would you proceed to do so?
    Mr. Parker. The Corps has a very large construction backlog, 
estimated at $40 billion. Included in this backlog is uncompleted fish 
and wildlife mitigation. This entire backlog must be addressed to 
satisfy the water resources needs of the Nation. If confirmed, I will 
work within the administration and with Congress to develop a plan for 
addressing the backlog of fish and wildlife mitigation, and seek the 
necessary funds to implement that plan.

  wetlands mitigation backlog (corps vs. private sector requirements)
    13. Senator Dayton. Mr. Parker, do you believe that the Corps 
should be required to meet the same mitigation requirements as the 
private sector (at least 1:1 mitigation and more for certain types of 
water resources damages)?
    Mr. Parker. It is my understanding that the Corps approach to 
mitigation (i.e., assessing impacts through functional analyses) is 
generally similar to mitigation approaches used by the private sector. 
Evaluation of impacts and mitigation using only acreage dimensions can 
be misleading. Under an acre-for-acre requirement, distinctions may not 
be made among varying qualities of habitat. The Corps' Civil Works 
Program approach of looking at habitat value is consistent with the 
policies of the U.S. Fish and Wildlife.

  wetlands mitigation backlog (meeting future mitigation requirements)
    14. Senator Dayton. Mr. Parker, how will you ensure that in the 
future that all mitigation is completed prior to or concurrently with 
project construction, as the law requires?
    Mr. Parker. If confirmed, I will work within the administration and 
with Congress to see that project construction scheduled provide for 
the completion of mitigation at least concurrently with construction of 
other project features.

                    corps reform--business processes
    15. Senator Dayton. Mr. Parker, many Members of Congress have 
called for significant reforms in the way the Corps conducts its 
business.
    Do you think the Corps needs to make fundamental changes in the way 
it does business?
    Mr. Parker. The Corps has open and inclusive business processes and 
a tradition of working with private citizens, stakeholders, State and 
local governments, and other Federal agencies. However, improvement is 
possible and, if confirmed, I will work with the Chief of Engineers to 
identify further improvements in the Corps business practices so as to 
improve the service of the Corps to the Nation.

                    corps reform--independent review
    16. Senator Dayton. Mr. Parker, would you support an independent 
review--outside of the Corps--of costly or controversial projects?
    Mr. Parker. The Water Resources Development Act of 2000 authorized 
a National Academy of Sciences study of independent peer review of 
Corps projects. I understand that the Academy report on independent 
review is scheduled for completion in the summer of 2002. In addition, 
the Chief of Engineers has been examining the question of independent 
review of large, complex, or controversial studies and has developed 
some preliminary recommendations. If confirmed, I plan to actively 
examine the question of independent review, in consultation with the 
Chief of Engineers and considering the views of the National Academy of 
Sciences, and to develop a recommendation on this matter.

                wetlands (relaxing wetlands protection)
    17. Senator Dayton. Mr. Parker, do you think protections for 
wetlands under the Clean Water Act should be relaxed?
    Mr. Parker. No. I believe that we can maintain, and even enhance in 
some ways, protection of the aquatic environment, while improving our 
responsiveness to the regulated public. Wetlands are one of many 
critical elements of the Nation's aquatic resources, which also include 
open water streams, lakes, coastal bays, estuaries, and near shore open 
waters. I am committed to continued strong protection of wetlands under 
the Corps Clean Water Act regulatory program, and for other Corps 
activities. The Corps must conduct its review and evaluation of permit 
applications in a manner that reflects the functions and values of the 
entire aquatic environment and balances that with the need for proposed 
development. If confirmed, I will work with the Corps to ensure that 
they improve permitted compliance with permit conditions, which require 
wetland mitigation so that the impacts to wetlands will be successfully 
offset.

                    wetlands (epa's oversight role)
    18. Senator Dayton. Mr. Parker, do you believe EPA's oversight role 
on wetlands protections under the Act should be weakened or eliminated?
    Mr. Parker. No. I believe that EPA and its various programs under 
the Clean Water Act provide important protections for wetlands, and 
work to integrate Federal wetlands protection with efforts by the 
states and local communities. EPA is clearly the lead on working with 
states regarding assumption of the Section 404 program and works 
effectively at improving state and local programs that protect 
wetlands. They also play an important role in Federal wetlands 
protection, including the Section 404 program. As we move to ensure 
that the taxpayer receives maximum benefit from resources expended in 
all programs, including wetlands protection, we must ensure that there 
is not an unnecessary level of duplication among any Federal agencies, 
including the Corps and EPA. If confirmed, I will work to ensure that 
the administration makes the best use of both agencies' capability 
while not doing things twice.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                 wetlands (recent supreme court ruling)
    19. Senator Warner. Mr. Parker, if confirmed, what experience will 
you bring to bear in developing a definition that follows the recent 
Supreme Court ruling and does not exceed the authority of the Clean 
Water Act?
    Mr. Parker. If confirmed, I will bring my experiences as a Member 
of Congress on the Energy and Water Development Subcommittee of the 
Appropriations Committee, as a landowner, as a businessman and as a 
private citizen to help develop an appropriate implementation of the 
important Supreme Court decision in the Solid Waste Agency of Northern 
Cook County (SWANCC) case. In arriving at the appropriate 
implementation, I will work closely with Department of Defense and Army 
leaders, legal experts, and other policy officials within the 
administration. I will also consult with Congress prior to adopting 
significant guidelines. While completing this process, it will be 
important to clearly identify what the Corps will continue to regulate 
under the Supreme Court's decision. By doing so states can determine 
the appropriate level of regulation they may want to do in areas where 
the Corps does not have authority to regulate under the Court's 
decision.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                          national cemeteries
    20. Senator Thurmond. Mr. Parker, the Assistant Secretary of the 
Army for Civil Works has the responsibility of oversight of our 
National Cemeteries. In that regard, he sets the guidelines on who may 
be buried in these hallowed grounds. Since cemetery space, especially 
Arlington National Cemetery, is reaching capacity, one of your 
challenges will be to accommodate the increasing need for burial space 
for the men and women who served in World War II and the Korean War. In 
regard to Arlington Cemetery, our Nation's most hallowed ground, you 
have a choice of expanding the cemetery or limiting the number of 
burials.
    As you reviewed the responsibilities of the Assistant Secretary of 
the Army for Civil Works, what thought have you given this matter?
    Mr. Parker. In reviewing the responsibilities of the Assistant 
Secretary of the Army for Civil Works, it is clear there is a challenge 
in accommodating the burial needs of our service men and women. 
Arlington National Cemetery is very active with thousands of funerals 
each year. As I understand it, all currently available space will be 
used up by 2025. A Master Plan was developed in 1998 to address this 
issue. The Plan's vision was that Arlington remain open into the 22nd 
century. The Plan considered several alternatives for extending the 
cemetery's life, including land expansion and more restrictive burial 
eligibility. I am told that the last time there was a change in burial 
eligibility was in 1967. Although the 1998 Master Plan did not suggest 
further changes, it did recommend reevaluation of burial policy every 5 
years. The first review will take place in 2003. The Master Plan also 
addressed expansion by looking at potential sites adjacent to the 
cemetery. A more in-depth analysis of adjacent government-owned sites 
was performed in a Concept Land Utilization Plan, which I understand 
was submitted to Congress last year. 
    I believe the process described above provides a reasonable way to 
consider options for extending the cemetery's life. If confirmed, I 
will place a high priority on early coordination with Congress as the 
review of these options proceeds.

                  role of the military in civil works
    21. Senator Thurmond. Mr. Parker, the Corps of Engineers that most 
of the country is familiar with is essentially a civilian organization, 
yet based on the historic role the Army Engineers have had in exploring 
and developing our Nation there are hundreds of military personnel 
working in the Corps of Engineer Districts.
    As the Army reviews its role and undergoes the transformation to 
meet the new challenges, should we review the role of the military as 
it relates to civil works and possibly assign the functions to an 
agency outside the Department of Defense?
    Mr. Parker. The Corps has a long history of successful development, 
management and protection of the Nation's water resources. The Civil 
Works program also brings to the Army an experienced engineering and 
construction management workforce that can contribute to the defense 
needs of the Nation. The Army, in conducting operations that range from 
stability and support to actual war, has successfully leveraged the 
experience obtained in managing the large construction projects and 
response to natural disasters characteristic of the Civil Works 
programs. Transfer of the Civil Works mission to a non-defense agency 
would compromise this attribute. Therefore, my inclination would be 
retain the Corps role in Civil Works within the Defense Department.

                        role of corps engineers
    22. Senator Thurmond. Mr. Parker, although the Corps of Engineers 
had a significant role in building our Nation's infrastructure, there 
are many who believe we should now turn over the Corps' Civil Works 
mission to the private sector.
    What is the Corps of Engineers' Civil Works role and what new 
missions do you expect the Corps to assume in the coming years?
    Mr. Parker. The Army's Civil Works mission is to contribute to the 
national welfare and serve the public by providing the Nation and the 
Army with quality and responsive development and management of the 
Nation's water resources; protection, restoration, and management of 
the environment; disaster response and recovery; and engineering and 
technical services in an environmentally sustainable, economically, and 
technically sound manner. I do not foresee any major new missions in 
the coming years.

 hunting island state park (expedite the section 206 aquatic ecosytem 
                           restoration study)
    23. Senator Thurmond. Mr. Parker, as you may be aware, the beach 
renourishment project at Hunting Island State Park is the top priority 
for the South Carolina Department of Parks, Recreation, and Tourism 
(PRT). There is currently a joint project between the Corps of 
Engineers and the South Carolina Office of Ocean and Coastal Resource 
Management regarding Hunting Island. Discussions between the parties 
have been cordial and productive. I appreciate that the Corps has 
supported this project, and that a feasibility study is underway. Given 
the beach condition at Hunting Island, I would appreciate your response 
to the following concerns:
    In 1998, PRT funded a feasibility study to identify options and 
costs associated with the beach restoration project. The Corps is now 
conducting its own Feasibility Study as part of a Section 206 Aquatic 
Ecosystem Restoration Study. Giventhe earlier study, what measures can 
be undertaken to expedite the study process and move to the next phase 
of this project?
    Mr. Parker. I understand that the Corps' feasibility study is 
evaluating the impacts of high erosion rates on Hunting Island's 
delicate ecosystem and the park infrastructure, and that the Corps has 
examined the findings from the study funded by the South Carolina 
Department of Parks, Recreation, and Tourism. If confirmed, I will 
examine the process for completing this study and determine if it can 
be expedited.
  hunting island state park (best-case scenario to start construction 
                                earlier)
    24. Senator Thurmond. Mr. Parker, in a best-case scenario, the 
Corps would start project construction in October of 2002. This date 
has been determined to be problematic because of potential loss of the 
access road and water line serving the south end of the island. Can 
project construction begin earlier, to prevent this loss and related 
consequences?
    Mr. Parker. I am informed that you are correct about the best-case 
scenario. If confirmed, I will give this matter close attention and 
keep Congress informed of the status.

   hunting island state park (use of section 14 emergency streambank 
                         protection authority)
    25. Senator Thurmond. Mr. Parker, as an interim measure to save the 
road, discussion has been held between the parties regarding an 
emergency Section 14 Corps project. Will the Corps support this 
emergency project and provide adequate resources to proceed in an 
expedited manner?
    Mr. Parker. I understand that in June, 2001, the Corps' Charleston 
District received a request from South Carolina Department of Parks, 
Recreation and Tourism to provide emergency protection for the access 
road and utilities located at the south end of the island under the 
authority of Section 14 of the Flood Control Act of 1946. I am told 
that the District has determined that emergency protection is likely to 
be justified and has initiated a Planning and Design Analysis. This 
analysis is scheduled to be completed early in fiscal year 2002 and 
would include plans and specifications. If funds are available, the 
emergency protection could be constructed after that.

                      charleston district engineer
    26. Senator Thurmond. Mr. Parker, as I am sure you remember, we 
recently discussed my concerns about, the current rank of the 
Charleston, South Carolina, District Engineer. I am greatly concerned 
that this office is the only one in our division where the District 
Engineer is not a full colonel. From hurricanes on the coast to 
cleaning up Former Utilized Defense Sites in the Upstate, this office 
has a huge responsibility over a wide range of matters throughout South 
Carolina. There is also the issue of the high costs associated with 
moving a new District Engineer every 2 years rather than 3. I also 
think that you would agree it is often times very difficult to start 
and complete a project within a 2 year time frame. Having an additional 
year for the District Engineer would allow a continuity with other 
parties involved in projects that is now missing. Given all these 
factors, I cannot understand why our District Engineer is not equal in 
rank with his counterparts in the South Atlantic Division.
    How do you propose to rectify this situation?
    Mr. Parker. If confirmed, I will examine the process the Corps is 
using to determine assignment of officers to District Offices. I will 
specifically reassess the current rank of the Charleston District 
Office in light of the many challenging missions that the office has.

                           dredging projects
    27. Senator Thurmond. Mr. Parker, throughout South Carolina and the 
United States, there are many projects that I feel are not receiving 
the appropriate attention of the Corps of Engineers. With costs 
continually rising for proper disposal of dredge spoil, numerous 
smaller dredging proposals at marinas and harbors are being overlooked 
for the larger plans. Many people associated with these local and 
smaller projects rely on this business for their livelihood. They 
cannot compete with the larger companies and plans. As a result of 
this, I feel that there may be the need to establish a special program 
within the Corps to specifically assist these smaller projects.
    Would you support creating a program that would be solely 
established to assist these smaller dredging projects?
    Mr. Parker. I have been told that in fiscal year 2000 the Corps 
spent $135 million for dredging, structural repairs and other 
operations at the smaller, shallow draft projects and $562 million at 
deep draft harbors. The amount expended on shallow draft projects was 
19 percent of the total. While this represents a fair share of 
resources, I will, if confirmed, look into whether a special program is 
needed.

 environmental restoration (corps' role in dod environmental clean-up 
                                efforts)
    28. Senator Thurmond. Mr. Parker, a major problem facing the 
Department of Defense is environmental restoration of current and 
former military installations. We are dedicating billions of dollars to 
this effort and I am not certain the Nation's taxpayers are getting the 
most out of this effort.
    What is the Corps of Engineer's role in the Department of Defense's 
environmental clean-up efforts? Should it be increased or decreased?
    Mr. Parker. I understand that while the Assistant Secretary of the 
Army (Installations and Environment) has the Army lead for 
environmental restoration, the Corps does play an important role. The 
Corps currently provides environmental support to other Defense 
Department agencies, the Assistant Chief of Staff for Installation 
Management, other Major Army Commands and installation commanders. The 
Corps serves as executing agency for the Formerly Used Defense Sites 
Program and for assigned projects for the Army Installation Restoration 
Program and the Base Realignment and Closure Program. The Corps also 
administers the Defense and State Memorandum of Agreement/Cooperative 
Agreement Program for the Deputy Undersecretary of Defense for 
Environmental Security. In addition, the Corps plans and develops the 
Army Environmental Quality Program, and also integrates the Army 
Materiel Command's acquisition and industrial pollution prevention 
programs into the total Army program.
    Based on its demonstrated expertise, it would appear that the Corps 
has the capability for an increased role in the Defense Department's 
environmental clean-up efforts. However, whether or not it is desirable 
to increase the Corps' role is a matter for review by the entire DOD 
and Army leadership.

                 contracting reform (benefits to army)
    29. Senator Thurmond. Mr. Parker, in Secretary Rumsfeld's recent 
testimony before the Senate Armed Services Committee he stressed the 
need to reform the outdated management and acquisition processes in the 
Department of Defense. As a result of that testimony, Senator Allard 
and I contacted the Secretary concerning the innovative contracting 
mechanism being used by the Army for the environmental restoration of 
the Rocky Mountain Arsenal. According to information I have received, 
this innovative approach has produced impressive results. It will 
reportedly reduce program costs by $200 million and the project 
completion time by 3 years, while maintaining planned annual 
expenditures of approximately $70 million with a competent, yet 
reduced, Government core oversight team. I have also been informed that 
the contractor has received numerous accolades due to the meaningful 
small business involvement they have cultivated.
    I believe this is an innovative and dynamic concept that can be 
applied throughout the Armed Services, especially at the Corps of 
Engineers, that will allow each of you to quickly and efficiently adopt 
best commercial practices. In other words, this contracting model may 
yield dramatic and immediate savings for the Department.
    Do you believe that the Department could benefit from contracting 
reform?
    Mr. Parker. The Corps has benefitted from reforms made possible by 
the Federal Acquisition Streamlining Act (1994), and the Federal 
Acquisition Reform Act (1996), especially the development of 
performance-based contracting, adoption of commercial practices, 
partnering, teaming, and contractual incentives. These initiatives 
changed the way the Corps acquires supplies and services, moving from a 
process-oriented, rules-based, risk avoidance culture, to one 
emphasizing performance outcomes, business judgment, streamlined 
procedures, and risk management. If confirmed, I will look forward to 
working with the Secretary of Defense, the Secretary of the Army and 
others to find ways to adopt additional contracting reforms that would 
benefit the Corps.
 contracting reform (applicability of rocky mountain arsenal contract)
    30. Senator Thurmond. Will you commit to studying the Rocky 
Mountain Arsenal Program Management Contract in order to evaluate its 
applicability to other projects in your Department? 
    Mr. Parker. If confirmed, I will study the Rocky Mountain Arsenal 
Program Management contract process and consider whether that could 
serve as a model for other projects. I understand the Army is currently 
evaluating the benefits of several innovative contracting initiatives 
for environmental cleanup, including the Rocky Mountain Arsenal Program 
Management Contract concept. The lessons learned in contracting at 
Rocky Mountain Arsenal should be considered for possible application to 
other cleanup projects, particularly large, complex, multi-year 
projects.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                      construction and o&m backlog
    31. Senator Smith. Mr. Parker, as you are well aware, the Army 
Corps Civil Works Program faces a construction backlog of $40 billion 
in unfunded, but authorized projects. The Senate Environment and Public 
Works Committee is currently on schedule to report the next biennial 
Water Resources Development Act in the year 2002. While the 
Appropriations Committees have adhered to a ``no new starts'' policy, 
this seems to unfairly penalize otherwise meritorious projects.
    What do you recommend Congress do to fairly address both the 
massive construction backlog and the backlog of operations and 
maintenance?
    Mr. Parker. The majority of the construction backlog is made up of 
projects that are supported in the President's budget. Should I be 
confirmed, one of my priorities would be to strive for the efficient 
construction and completion of these projects. I also would propose 
funding for new projects that would provide the highest return or meet 
the most urgent water resources needs. Another of my priorities would 
be to accomplish the most critical maintenance needed to arrest further 
deterioration of existing Civil Works projects and to ensure adequate 
project performance. Only with the closest cooperation and consultation 
with Congress can we decrease these backlogs.

        distribution of responsibilities and reporting authority
    32. Senator Smith. Mr. Parker, in November of 2000, then-Assistant 
Secretary Joseph Westphal and Chief of Engineers General Robert Flowers 
signed a Memorandum of Agreement (MOA) outlining the distribution of 
responsibilities and reporting authority between the two positions. Is 
it your intent to honor this MOA?
    Mr. Parker. I intend to honor this MOA.

                upper mississippi river navigation study
    33. Senator Smith. Mr. Parker, what measures do you recommend the 
Army Corps take to avoid a recurrence of the situation encountered with 
the Upper Mississippi River Navigation Study?
    Mr. Parker. As I understand it, there were some technical problems 
with the Upper Mississippi Navigation Study. The Chief of Engineers has 
corrected those problems and the study is back on track. The National 
Research Council of the National Academy of Sciences found that the 
model for economic analysis was flawed. The Council also suggested a 
number of other improvements that could be made in the study. The Corps 
has subsequently taken a number of actions on the Upper Mississippi 
Study that will have broader application to similar large-scale studies 
in the future. The Corps has established a Washington-level principals 
group, composed of senior people from other key Federal agencies, to 
advise the Corps on the Upper Mississippi Study. This principals group 
has contributed to formulating guidance on the resumption of the study. 
This guidance includes a restructuring of the study to investigate 
navigation, ecosystem, and related needs in a comprehensive, holistic 
manner that will consider modifying the navigation system to meet 
transportation needs and achieve environmental sustainability. The 
Corps has also formed an Interagency Regional Work Group that will 
collaborate in the development of a new Project Management Plan for the 
study.

   environmental restoration (primary mission of corps of engineers)
    34. Senator Smith. Mr. Parker, do you consider environmental 
restoration to be a primary mission of the Army Corps and will you 
support it to the same extent you do the other missions of the Corps?
    Mr. Parker. The environmental protection and restoration of fish 
and wildlife habitats is a primary mission of the Corps and, if 
confirmed, I would accord it the same priority as flood damage 
prevention and commercial navigation.

          homestead air force base and everglades restoration
    35. Senator Smith. Mr. Parker, on January 15, 2001, the Air Force 
issued a Record of Decision (ROD) on redevelopment of Homestead AFB, 
rejecting the plan to convert the base into a commercial airport and 
instead approving a plan for mixed use development. The 700 acres of 
land will be transferred to Miami-Dade County, which prefers the 
airport alternative. If the county declines the surplus property, the 
ROD stipulates that the Air Force will consider a request for the 
property to be transferred instead to the Department of Interior.
    Homestead AFB is located approximately 10 miles from Everglades 
National Park and 2 miles from Biscayne National Park. Last year, the 
Environment and Public Works Committee authorized an $8 billion 
restoration effort in the Everglades. Included in this statute is a 
Sense of Congress that any redevelopment of the Homestead AFB be 
consistent with restoration of the Everglades.
    What is your position regarding the disposal of Homestead AFB?
    Mr. Parker. I believe the disposal and/or redevelopment of the 
former Homestead Air Force Base should be consistent with the 
restoration goals and preservation and protection of the Everglades 
ecosystem. Further, disposal and redevelopment of the site should also 
be consistent with other goals of the restoration plan, including 
providing for water supply and flood protection and maintaining the 
economic viability of South Florida.

                             corps reforms
    36. Senator Smith. Mr. Parker, do you think that any reforms are 
needed in the Corps to restore the faith of the public and Congress in 
this agency?
    Mr. Parker. I believe the Corps is a fundamentally sound 
organization. It has strong technical abilities and has proven time and 
time again that it can solve difficult problems. It has served this 
Nation for many years and can be counted on to continue to do so in the 
future. However, based on recent findings, the Corps does need to re-
examine the way it manages policy and technical reviews in order to 
ensure projects will receive broad support. In addition, in this era of 
scarce resources, the Corps must find better, more effective ways of 
communicating with the broad range of interests that have a stake in 
its projects.

                       principles and guidelines
    37. Senator Smith. Mr. Parker, would you support updating the 
Principles and Guidelines to reflect recent policy and social changes, 
such as the inclusion of environmental restoration as a federal 
purpose, and advances in analytical techniques and technologies?
    Mr. Parker. If confirmed, I would be willing to look at this matter 
in more detail.
                                 ______
                                 
    [The nomination reference of Paul Michael Parker follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 19, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Paul Michael Parker, of Mississippi, to be an Assistant Secretary 
of the Army, vice Joseph W. Westphal.
                                 ______
                                 
    [The biographical sketch of Paul Michael Parker, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
           Biographical Sketch of Paul Michael (Mike) Parker
    Since 1996, Mr. Parker has been the owner and President of GFG 
Farms, Inc. and Welch Resources, Inc., companies with timber, farming 
and leasing operations.
    In 1999, Mr. Parker ran unsuccessfully as the Republican nominee 
for Governor of the State of Mississippi. The race was in the closest 
in Mississippi history, with neither candidate receiving a majority of 
the popular vote and ending in a tie in the Electoral College. The 
Mississippi House of Representatives elected the democratic candidate.
    In 1989, Mr. Parker was elected to represent the Fourth 
Congressional District of Mississippi in the United States House of 
Representatives. While serving in the House from 1989 to 1999, Mr. 
Parker served on the Budget, Appropriations, Transportation, Education, 
and Workforce, and Veteran's Affairs Committees. While on the 
Appropriations Committee, Mr. Parker sat on the Energy and Water 
Development and Military Construction Subcommittees.
    From 1978 to his election to the House, Mr. Parker was the owner of 
three companies: Brookhaven Funeral Home, Inc.; Community Life 
Insurance Company; and Brookhaven Funeral Insurance Company.
    Mr. Parker graduated from William Carey College, Hattiesburg, 
Mississippi, with a B.A. degree in 1970. In 1995, he was awarded an 
Honorary Doctor of Humanities from William Carey College.
    Mr. Parker has been married for 31 years to his wife Rosemary. They 
have three children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Paul Michael 
Parker in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul Michael (Mike) Parker.

    2. Position to which nominated:
    Assistant Secretary of the Army for Civil Works.

    3. Date of nomination:
    June 19, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 31, 1949; Laurel, MS.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rosemary Prather Parker.

    7. Names and ages of children:
    Michael Adrian Parker, 26; Marisa Parker, 20; Thomas Welch Parker, 
16.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Franklin High School, 506 Edison Street, Meadville, MS; January 
1966-May 1967; High School Diploma, May 1967.
    Dallas Institute of Mortuary Science, 3909 South Buckner Blvd., 
Dallas, TX; September 1972-August 1973; Funeral Director's License, 
August 1973.
    William Carey College, 498 Tuscan Avenue, Hattiesburg, MS; 
September 1967-May 1970; BA, May 1970.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Parker-Malvaney Consulting, Inc., 50 Creekview Lane SE, Brookhaven, 
MS, President/Owner, January 2000 to Present.
    Welch Resources, Inc., 50 Creekview Lane SE, Brookhaven, MS, 
President/Owner, October 1997 to Present.
    U.S. Government, 2445 Rayburn House Office Building, Washington, 
DC; Member of Congress MS 4, January 1989 to January 1999.
    Brookhaven Funeral Home, Inc., 230 North Jackson Street, 
Brookhaven, MS; President/Owner, March 1978 to December 1992.
    Franklin Funeral Home, Inc., 230 North Jackson Street, Brookhaven, 
MS; President/Owner, March 1978 to December 1992.
    Brookhaven Funeral Insurance Company, Inc., 230 North Jackson 
Street, Brookhaven, MS; President/Owner, March 1978 to December 1992.
    Community Life Insurance Company, Inc., 230 North Jackson Street, 
Brookhaven, MS; President/Owner, May 1982 to December 1992.
    The Mississippi Hush Puppy Company, Inc., 50 Creekview Lane SE, 
Brookhaven, MS; President/Owner, June 1996 to December 1999.
    M&R Services, Inc., 50 Creekview Lane SE, Brookhaven, MS; 
President/Owner, January 1993 to December 2000.
    GFG Farms, Inc., 50 Creekview Lane SE, Brookhaven, MS; President/
Owner, October 1996 to present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Parker-Malvaney Consulting, Inc., 50 Creekview Lane SE, Brookhaven, 
MS; President/Owner, January 2000 to present.
    (Clients of Parker-Malvaney Consulting, Inc.) CSX Corporation, RJ 
Reynolds Tobacco Company, Mississippi Band of Choctaw Indians.
    Welch Resources, Inc., 50 Creekview Lane SE, Brookhaven, MS; 
President/Owner, October 1997 to present.
    GFG Farms, Inc., 50 Creekview Lane SE, Brookhaven, MS; President/
Owner, October 1996 to present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Member of Congress, 1989 to 1999, Representing the 4th 
Congressional District of Mississippi.
    Republican Gubernatorial Nominee for the State of Mississippi in 
1999.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    I have made only one personal contribution to a political 
candidate. On March 20, 1998, I gave $1,000 to my Chief of Staff, Art 
Rhodes, a candidate for Congress in the 4th District of Mississippi.
    My campaign committee has given the following contributions:

03/29/00...........................  Jim Talent for             $  1,000
                                      Governor of Missouri.
10/18/00...........................  The New Century              25,000
                                      Project.
10/18/00...........................  Rankin County                10,000
                                      Republican Executive
                                      Committee.
02/08/01...........................  Friends of John               1,000
                                      Roberts.
02/08/01...........................  Lincoln County                5,000
                                      Republican Executive
                                      Committee.
05/15/01...........................  Republican National         100,000
                                      Committee.
05/16/01...........................  Mississippi Republican       87,000
                                      Party.
 


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    William Carey College, 498 Tuscan Avenue, Hattiesburg, MS, Honorary 
Doctor of Humanities, Received: 1995.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    While serving for 10 years as a Member of Congress and as a 
candidate for governor, I gave hundreds of speeches on a variety of 
subjects; however, there are no formal copies of these speeches, nor 
have I given a speech specifically on the Corps of Engineers.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                        Paul Michael (Mike) Parker.
    This 14th day of June, 2001.

    [The nomination of Paul Michael Parker was first reported 
to the Senate by Chairman Levin on August 2, 2001, with the 
recommendation that the nomination be confirmed. Also on August 
2, 2001, the Senate agreed to a unanimous consent agreement 
which provided that once this nomination was reported from the 
Committee on Armed Services that it be referred to the 
Committee on Environment and Public Works for a period of 20 
days of session. On August 3, 2001, however, the Senate agreed 
to another unanimous consent agreement, which provided that all 
nominations be returned to the President on August 3, 2001, 
pursuant to Rule XXI paragraph 6 of the Standing Rules of the 
Senate. The nomination of Michael Parker was resubmitted to the 
Senate by the President on September 4, 2001. On September 5, 
2001 the Senate agreed to another unanimous consent agreement 
which again provided that the Parker nomination, once reported 
by the Committee on Armed Services, be referred to the 
Committee on Environment and Public Works for a period of 20 
days of session. On September 6, 2001 the nomination of Michael 
Parker was reported to the Senate by Chairman Levin, with the 
recommendation that the nomination be confirmed. The Parker 
nomination was then referred to the Committee on Environment 
and Public Works. That committee held a hearing on the 
nomination on September 21, 2001. On September 25, 2001, the 
Committee on Environment and Public Works reported the 
nomination to the Senate, with the recommendation that the 
nomination be confirmed. The nomination was confirmed by the 
Senate on September 26, 2001.]
                              ----------                              

    [Prepared questions submitted to Dr. Mario P. Fiori by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   July 26, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Mario P. Fiori. 
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the Department of Defense 
Reorganization Act of 1986 and related Special Operations initiatives 
for defense reform.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. From what I have learned to date, these defense reforms 
have been implemented and have achieved the desired results. Having 
said that, I believe it is important, and consistent with the intent of 
the reform legislation, that the Army continues to assess and modify 
its operations and internal procedures to meet the challenges of a 
dynamic security environment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of these reforms were 
strengthening civilian control, streamlining the operational chain of 
command, improving the efficiency in the use of defense resources, 
improving the military advice provided to the National Command 
Authorities, clarifying authority for combatant commanders, and 
enhancing the effectiveness of military operations.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I fully support the congressional goals reflected in 
the Department of Defense Reorganization Act of 1986 and other related 
defense reform legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. At this time, I have not had an opportunity to consider 
whether changes to Goldwater-Nichols may be warranted. If confirmed as 
the Assistant Secretary of the Army (Installations and Environment) 
(ASA (I&E)), I will remain open to proposals within the Department that 
will increase the effectiveness of the organization and missions within 
my areas of responsibility.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army (Installations and Environment)?
    Answer. Under current Army policy, the Assistant Secretary is 
responsible for policy development, program oversight, and coordination 
for a wide variety of Army activities, including installation 
management, safety, and occupational health programs, and environmental 
cleanup, compliance, prevention, and conservation. I understand that 
the ASA (I&E) is responsible for the stewardship of 12 million acres 
and facility investment totaling more than $160 billion.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have had a diverse background of engineering management, 
nuclear power discipline, major laboratory management, and most 
recently, manager of a major Department of Energy facility (Savannah 
River Site.) In many of these positions I was responsible for landlord 
functions, research and development, and downsizing and economic 
development. For example, at Savannah River Site, I was responsible for 
this 320 square mile area of forest and industrial area. Downsizing of 
the industrial complex, combined with environmental controls of this 
large area, including major environmental research (conducted by the 
University of Georgia as a contractor to DOE), were all part of the DOE 
manager's area of interest and responsibility. Such experiences, 
including those in the Naval Service earlier, prepare me very well for 
the challenges of the ASA (I&E) position.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army (Installations and Environment)?
    Answer. It is never too late to find new and innovative ways to 
accomplish the very important tasks at hand. If confirmed, I plan to 
utilize the expertise of the Army's military and civilian workforce, 
supplemented by independent advice from standing groups such as the 
Army Science Board, the Institute for Defense Analyses, and from 
private sector organizations and individuals. For many of the issues 
that I will face I would utilize a multi-disciplinary project team 
drawing on expertise in I&E, other Army Secretariat organizations, DOD 
and outside organizations as appropriate. In my past experiences I 
always have sought the best talent available both in employees and in 
advisors to supplement and enhance my personal experience and 
expertise. I have learned that providing the people an opportunity to 
perform is key to the success of the organization. People must be 
challenged and be held accountable.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. The duties of the Assistant Secretary are currently defined 
in a General Order. If confirmed, I will advise the Secretary on 
issues, initiatives and ideas that fall within my areas of 
responsibility and I will accept any other assignments he may deem 
necessary for the successful accomplishment of the Army mission. I look 
forward to working closely with the Secretary and making the Army team 
an example for others to emulate.
    Question. In carrying out your duties, how will you work with the 
Secretary of the Army, the Under Secretary of the Army, and the Deputy 
Under Secretary of Defense (Installations and Environment)?
    Answer. The organizational relationship between the ASA (I&E) and 
the Under Secretary of the Army is defined by the Secretary of the 
Army. The Under Secretary is the Secretary of the Army's principal 
civilian assistant and senior advisor and I will be available to assist 
him at all times and always keep him informed of significant issues 
under the ASA (I&E) purview. If confirmed, I will establish a 
cooperative and open relationship with the Deputy Under Secretary of 
Defense and assist him in developing programs that are cost effective 
and would benefit the entire military structure.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army (Installations and 
Environment)?
    Answer. I believe there are three major challenges in managing I&E. 
First, the Army faces a major ongoing challenge in its effort to meet 
mission requirements and provide for the quality of life for soldiers 
and their families in this era of diminishing resources. Second, the 
Army needs to move forward aggressively in reducing and realigning its 
infrastructure to match its requirements into the 21st century. Third, 
the Army needs to strive to achieve more efficient and cost effective 
remediation of its properties. The identification and resource 
programming for the Army's requirements to cleanup munitions and 
Unexploded Ordnance (UXO) at its non-operational ranges and disposal 
areas are one of our major challenges.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will quickly evaluate the action plans in 
place, and with the assistance of staff and other experts, develop 
changes that have proven effective in other areas or have significant 
promise to effectively and economically address the challenges. There 
is a wealth of knowledge in the Army, other government agencies, and in 
the private sector. I would not reject any help that makes sense and 
assists the Army in properly marshalling its resources to address these 
challenges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Army 
(Installations and Environment)?
    Answer. With shrinking budgets, I believe that the Army must strive 
to achieve an effective balance between the quality of life for Army 
soldiers and their families, force sustainment, and the modernization 
necessary to build an effective Army for the future. Moreover, it will 
be a continuing challenge for the Army to achieve the optimum balance 
among the competing tools available to meet these needs, such as 
private sector performance of functions, use of emerging technologies, 
and the development of innovative programs.
    The Army's ability to address requirements for munitions cleanups 
and dispose of real property is controlled by the absolute need to 
protect the health of the affected communities and meet the regulatory 
requirements for environmental cleanup.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will quickly assess the nature and scope of 
the problems and challenges that ASA (I&E) faces. I will retain those 
programs that appear to be working well, develop new programs where 
required, and modify those that have promise. I would work very closely 
with Congress, the regulators, other stakeholders, and other DOD and 
Executive Departments.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues that must be addressed by the Assistant Secretary of 
the Army (Installations and Environment)?
    Answer. Establishment of policy and programs to address the legacy 
of unexploded ordnance and munitions residues at closed, closing and 
formerly used military ranges and disposal areas will be one of my top 
priorities. The Army must ensure that our legacy of past military 
activities is addressed in a responsible and timely manner and also 
ensure that past mistakes are not repeated. Additionally, I will work 
to streamline the Army's property disposal process and address 
environmental cleanup concerns so that excess properties are returned 
to reuse in the public or private sector as rapidly and efficiently as 
possible.
                         housing privatization
    Question. Congress has repeatedly expressed its support for 
improving military family housing. In recent years the Department of 
Defense and Congress have taken significant steps to improve family 
housing. However, it will take many more years and a significant amount 
of funding to meet the Department's housing needs. An alternative 
option that was created to speed the improvement of military family 
housing and relieve base commanders of the burden of managing their 
family housing is the housing privatization program. If confirmed for 
the position of Assistant Secretary of the Army (Installations and 
Environment) you will have a key role in any decisions regarding 
military family housing.
    What are your views regarding the privatization of family housing?
    Answer. The legislation enabling privatization initiatives within 
DOD and the military services provides an effective mechanism to 
leverage the military Services' limited resources, thereby increasing 
the availability and quality of family housing for Service members and 
their families. It appears that privatization may prove to be the most 
effective and affordable method of revitalizing the Army's large and 
aging family housing stock and providing essential new housing. I 
understand that there is enormous interest among the Nation's leading 
developers in partnering with the Army in this program. It is essential 
to approach housing issues with a broad-based program perspective that 
addresses long-term development and management of Army communities--not 
simply the construction of housing units. Army communities, like 
civilian communities, include all of the facilities and services that 
accommodate and support soldiers and their families. If confirmed, my 
primary goal in this area would be to develop appropriate program 
strategies to effectively use scarce Army resources and significantly 
improve the quality of life for our soldiers.
    Question. What is your view of the structure, pace, and general 
goals of the Army's current housing privatization program? Do you think 
the program should be continued, and if so do you believe the program 
should be modified in any way?
    Answer. The privatization authorities that were provided by 
Congress in 1996 in the Military Housing Privatization Initiative 
provide a good structure and the appropriate tools to carry out family 
housing privatization. If confirmed, I will become fully engaged in the 
Army's housing privatization program and will conduct periodic reviews 
and/or lessons learned sessions to identify modifications to improve 
the process.
    Question. The Army has contracted for a major housing privatization 
effort at Fort Hood, Texas using a request for qualifications (RFQ) 
process instead of the more traditional request for proposals (RFP) 
process.
    What are your views on the relative merits of these contracting 
approaches?
    Answer. I understand the Army is using a Request for Qualifications 
(RFQ) solicitation process in the housing privatization program because 
this allows the Army to partner with a highly qualified, world-class 
development partner to design the best residential community for a 
given installation.
    Question. The Department of Defense has established 2010 as a goal 
to improve all of its military family housing.
    Do you believe the Department of the Army can achieve this goal?
    Answer. Yes, I believe that the Army can achieve the DOD goal of 
eliminating inadequate family housing by fiscal year 2010 using a 
combination of traditional MILCON, increases in the Basic Allowance for 
Housing, and housing privatization.
                          competitive sourcing
    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform activities that are 
commercial in nature, including many functions relating to running and 
maintaining our military installations.
    What approach would you recommend to balance the need to maintain 
necessary decision-making functions and technical capabilities in the 
government's civilian workforce, including the knowledge necessary to 
be a ``smart buyer,'' and skills such as civil engineering within the 
military, with the savings that may be available from outsourcing?
    Answer. Although inherently governmental functions normally cannot 
be performed by contractors, I understand that there is a credible 
process within the Army for identifying those core commercial 
capabilities required for maintaining a smart buyer capability, and I 
intend to support that process. In all cases, the military and civilian 
employees must be trained to be ``smart customers.'' I believe the 
smarter the customer, the better will be the performance of the 
supplier and frequently at less cost.
    Question. Do you support the principle of public-private 
competition as the preferred means to make the ``sourcing'' decision 
for such functions?
    Answer. Generally, OMB Circular A-76 and Federal law require 
public-private competition as the means to make the ``sourcing'' 
decision.
    Question. Do you believe that public-private competition results in 
significant savings to the Department of Defense regardless of which 
side wins the competition?
    Answer. Yes, according to experts familiar with the process, 
public-private competition typically results in savings in excess of 30 
percent, regardless of which side wins the competition. I feel that 
these savings are important and must be considered as we plan to manage 
in the future.
    Question. OMB Circular A-76, which establishes the guidelines for 
outsourcing most government functions, is slated for scrutiny by a 
congressionally-mandated panel of government and private experts in 
this area. The panel, chaired by the Comptroller General, is scheduled 
to report to Congress with specific policy and legislative reforms and 
recommendations for changing the way the government conducts 
outsourcing decisions and implements them.
    What is your view of the current A-76 process?
    Answer. If confirmed, I intend to thoroughly familiarize myself 
with the process and ensure the process is effective and will continue 
to provide substantial savings and efficiencies.
    Question. Are there other effective alternatives to achieve the 
benefits of public-private competition?
    Answer. This is a complex issue, and I believe it is prudent to 
wait until the Commercial Activities Panel has provided its analysis of 
the question before I make a final judgment as to whether other 
effective alternatives exist.
                             base closures
    Question. The President's February 2001 budget blueprint document 
states that ``with 23 percent in estimated excess infrastructure, it is 
clear that new rounds of base closures will be necessary to shape the 
military more efficiently''.
    Do you believe that we need more base closures?
    Answer. The Secretary of Defense initiated a broad review of the 
Department of Defense that is currently ongoing. I would expect 
recommendations about reshaping our infrastructure to emerge as a 
result of this review. The Secretary recently indicated that with a 
round of base closings and adjustments that reduced unneeded facilities 
we could focus the funds on facilities we actually need.
    Question. Do you believe the Army has excess infrastructure that 
uses resources that could be applied to higher priorities within the 
Department of the Army?
    Answer. In an April 1998 DOD report to Congress, the Army reported 
that it had excess infrastructure. A final determination on this point 
cannot be made until ongoing Defense reviews are completed and the 
impacts are assessed. If confirmed, I will work to ensure that the Army 
retains the infrastructure that it needs to support current and future 
Army force structure, training, and readiness requirements.
    Question. Do you believe the process established by the Defense 
Base Closure and Realignment Act of 1990 is a fair and effective way to 
reduce excess military infrastructure and return the property to local 
authorities?
    Answer. Improvement is always possible in a process as complex as 
the Act of 1990. In the future, the Army will need to reshape its 
infrastructure to support the Army of the future. Once there is a clear 
understanding of the direction the Army needs to take, it can be 
determined if the Act of 1990 is the right process or whether 
recommendations to modify the process should be made.
    Question. In your view, would changing the base closure process to 
exempt some bases from the independent commission's review make the 
process more or less open, fair, and stressful to communities with 
military installations?
    Answer. If confirmed, I will carefully consider any proposed 
changes to improve the process. I do believe that communities deserve 
to know the status of their base as quickly as possible. Above all, we 
need to ensure that the process is open and fair and achieves that 
objective.
                       real property maintenance
    Question. The military departments have consistently struggled to 
maintain their base infrastructure. The backlog of real property 
maintenance has remained high whether budgets were increasing or 
decreasing, and the military is far behind industry standards for 
maintaining and modernizing its facilities.
    Are there any new approaches to this issue that you believe could 
help the Army move toward a solution of this perennial problem?
    Answer. I understand that the Army is taking several approaches to 
the problem of maintaining its base infrastructure in the face of 
inadequate funding, including utility privatization. In addition, the 
military services' leasing authority under Title 10 USC, Section 2667 
is an important tool for addressing real property maintenance and 
revitalization. Also, the Army is involved in an effort to relocate 
from leased facilities to on-post facilities. All of these programs 
work together toward eliminating the funding delta for the maintenance 
of base infrastructure.
                          environmental issues
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include population growth near military 
installations, environmental constraints on military training ranges, 
airspace restrictions to accommodate civilian airlines, and the 
conflicts with civilian users over the use of radio frequency spectrum.
    In your opinion, how serious are these problems for the Department 
of the Army?
    Answer. I believe that the Army must provide our soldiers with 
tough, realistic, battle-focused training in preparation for a wide 
variety of mission-essential warfighting scenarios ranging from 
tropical to desert to cold region operations. Ensuring our soldiers 
have access to the most realistic training possible is a challenge for 
both our operations and environmental personnel.
    Army environmental programs help support this core mission by 
conserving training lands, preventing pollution, complying with laws 
and regulations, partnering with local communities, and cleaning up 
contamination at Army installations.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges and what actions would you propose to take 
to address them?
    Answer. If confirmed, I will work to ensure that the Army has a 
holistic approach to land management. Doctrinal changes and advances in 
equipment capabilities require that we use more of our land resources 
than ever before. If confirmed, I seek ways to improve our stewardship 
so that this valuable resource continues to be available for training 
our soldiers.
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action, and those that 
will be out of compliance before the next budget cycle.
    Do you believe that continuing funding for this type of 
environmental cleanup is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. Continued funding of the Army environmental compliance 
program is critical to all stakeholders, and I will, if confirmed, 
ensure that we approach our commitments to make sure our communities 
are protected from harm. I believe that the Army's commitment to comply 
with Federal, State, and local regulations and laws is sound and it is 
a key in maintaining good community relations. Americans want to feel 
safe living and working on or near our installations. This compliance 
strategy also supports the Army training and readiness goals for 
mission sustainment. Compliance with environmental requirements builds 
and maintains community trust and tolerance of our installations 
activities.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of environmental laws?
    Answer. I feel that the military should comply with environmental 
laws and regulations, just as civilian entities must comply. I am 
mindful that some laws do provide a limited exemption for national 
security reasons where the activity is uniquely military and critical 
to the maintenance of national security.
    Question. Do you support the basic principle of the Federal 
Facility Compliance Act and other laws that Federal facilities, 
including DOD facilities, should be subject to the same standards as 
comparably situated civilian facilities?
    Answer. I believe that the military should be subject to the same 
environmental laws and regulations as comparably situated civilian 
facilities. Nonetheless, I believe it is important to acknowledge that 
the military has a unique mission that distinguishes it from the 
civilian sector. Every opportunity must be explored to identify the 
impacts of the rules/regulations on our mission before the Federal, 
State, or local law or regulation goes into effect.
    Question. The Department of Defense faces a bill for the clean up 
of unexploded ordnance (UXO) that is at least in the tens of billions 
of dollars and could well be in the hundreds of billions of dollars. At 
current funding levels, it has been estimated that it would take the 
military Services several thousand years to remediate UXO problems on a 
DOD-wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    Answer. This is a complex issue with many factors. It would be 
difficult at this time to define an ``acceptable'' period. I do 
appreciate the importance of this matter, and if confirmed, will make 
it one of my top priorities.
    Question. Do you believe that increased investment in UXO 
remediation technologies would be likely to produce more effective and 
efficient remediation processes and substantially reduce the 
Department's long-term clean-up liability (and the time required to 
complete such clean-up)?
    Answer. Yes, the Army needs to continue to invest in UXO and 
munitions response technologies to improve its ability to discriminate 
ordnance from non-ordnance items. I further believe that the Army 
should develop procedures and techniques to characterize UXO properties 
to gain public and regulatory agency acceptance of proposed cleanup 
plans.
                           energy efficiency
    Question. Executive Order 13123 lays out a number of specific steps 
that agencies should take to promote energy conservation. These include 
the use of energy savings performance contracts, utility energy 
efficiency contracts, and other contracts designed to achieve energy 
conservation; conducting energy efficiency audits for approximately 10 
percent of an agency's facilities each year; and exploring 
opportunities for energy efficiency in industrial facilities for steam 
systems, boiler operation, air compressor systems, industrial 
processes, and fuel switching.
    Do you support the use of these energy conservation approaches?
    Answer. Yes.
    Question. Are there other steps that you would take, if confirmed, 
to promote energy conservation by the Department of the Army?
    Answer. Yes. If confirmed, I would encourage the increased use of 
renewable energy sources such as wind, solar, photovoltaic, and 
geothermal when cost effective. I would also support the development 
and use of new energy saving technologies and business-oriented 
management techniques.
    Question. Do you believe that the energy conservation goals 
established in the Executive Order are achievable?
    Answer. Yes.
          integration of installations with local communities
    Question. The Department of Defense is in the midst of an effort to 
increase the Basic Allowance for Housing to eliminate out-of-pocket 
housing costs for military families who choose to live off base. This 
policy is intended to encourage more military families to live off base 
and reduce the demand for government housing. In recent years, 
outsourcing of base operations functions on military installations has 
increased substantially. Secretary Rumsfeld has proposed examination of 
additional contracting out in certain areas, including the operation of 
commissaries. All of these policies tend to increase the integration of 
the military into the local community and increase the non-military 
population on our bases.
    At the same time, force protection concerns are leading the 
military services to take steps to close or restrict access to military 
installations and to build force protection measures into the 
construction of schools and other non-military facilities on those 
installations.
    What do you believe is the appropriate level of integration, or 
separation, between military installations and the surrounding local 
communities?
    Answer. I believe that the military Services have expanded the 
integration between the military community and adjoining civilian 
communities. Where once posts were opened only on Armed Forces Day, 
they now are more accessible and share facilities and areas--
recreational areas such as parks and lakes and space in schools located 
on Army facilities. With respect to economic activity, the Army has 
never been separated from communities surrounding our posts. The 
civilian community is a source of medical, health and welfare, and 
comfort for the military community. If confirmed, I would continue to 
look for ways to develop or improve partnerships while maintaining 
focus on force protection, readiness and mission accomplishment.
                            davis-bacon act
    Question. 40 U.S.C. Sec. 276a, commonly known as Davis-Bacon, 
requires that for every contract in excess of $2,000 involving 
construction, alteration, and/or repair of public buildings or public 
works, the prevailing wage in that state shall be paid. When the 
contract cost-floor was set in the 1930s, $2,000 was a substantial sum 
of money, however, inflation during the intervening years has eroded 
the value of the dollar to the point were there is virtually no project 
that is not covered by Davis-Bacon.
    If confirmed, would you support raising the contract threshold to a 
more current standard before Davis-Bacon can be invoked?
    Answer. Yes.
    Question. In your personal opinion, what would be an appropriate 
contract cost before Davis-Bacon should apply?
    Answer. I have not examined the issue of raising the contract 
threshold, and would have to look at the impact of various contract 
cost levels before making a recommendation. I understand that this is a 
sensitive issue, which warrants thorough analysis and considered 
judgment.
                        installation management
    Question. One of the obvious handicaps to the implementation of the 
Family Housing Privatization initiative is the lack of specialists in 
real estate and financial management throughout the Department of 
Defense. A similar shortfall is said to exist in the area of business 
managers and installation managers.
    If the Army is experiencing similar shortfalls, should these 
positions be filled with contract or civil service personnel? Please 
explain.
    Answer. I understand that the Army generally has sufficient 
personnel resources to meet its mission requirements in the real estate 
and financial management areas. However, if confirmed, I will review 
the training of our personnel in this area to independently evaluate 
their expertise and take action as is necessary.
    Question. As the Army enters a new era of defense reform and 
business practices, does it have a program to ensure it has a cadre of 
real estate and business managers?
    Answer. The Army has established a real estate career and other 
personnel programs to provide trained professionals to meet current and 
future staffing requirements. In addition, contingency real estate 
support teams provide trained professionals to support deployed forces 
to assist in national emergencies. I will examine these programs for 
opportunities to make improvements and to apply commercial practices 
and concepts to better meet the Army's real estate and business 
management needs.
                       environmental encroachment
    Question. Some of the Service Chiefs have asserted that they spend 
more money each year complying with environmental regulations than they 
spend on training. In visits to military installations, committee 
members have observed first hand the barriers to training caused by 
compliance with environmental regulations.
    If confirmed, what steps would you take to reduce the cost to the 
Department of environmental compliance?
    Answer. I believe that better management practices are the keys to 
cost effective environmental program funding and spending while the 
Army continues to fund all ``must fund'' requirements. The Army expects 
to be more effective in minimizing environmental program costs through 
the implementation of the Environmental Management System approach to 
identifying and solving environmental problems. I encourage 
continuation of the effort to promote environmental program tracking, 
environmental audits, contract management and savings, levering science 
and innovative technologies, and integration of environmental 
considerations in planning. These are sound and prudent environmental 
management practices that will continue to engender smart sound program 
efficiencies.
    Question. If confirmed, how would you propose to facilitate the 
development and implementation of a comprehensive strategy to address 
readiness concerns related to these encroachment issues?
    Answer. I understand that the Army's Sustainable Range Program 
(SRP) maximizes the capability, availability, and accessibility of 
ranges and training land, and in a manner that provides sound 
environmental stewardship, all in order to support overall doctrinal 
training and testing requirements.
    In order to sustain readiness in light of increasing encroachment, 
if confirmed, I will work to ensure that the Army improves its 
management of ranges and land.
                         overseas installations
    Question. The Army maintains a network of bases to support our 
forward deployed forces. In testimony before the Senate Armed Services 
Committee, both the Supreme Allied Commander, Europe, and the 
Commander, United States Forces, Korea, stated that the installations 
in their commands are in serious need of repair. The implication of 
these statements is that overseas installations are not faring well in 
the funding allocation process.
    In your view, what share of resource allocation should go to our 
overseas bases?
    Answer. If I am confirmed, I will study the concerns expressed by 
the commanders of the Army's overseas forces to ensure that the needs 
of their commands are adequately addressed.
                   67-year facility replacement goal
    Question. One of Secretary Rumsfeld's more significant goals is to 
fund facility replacement on a 67-year standard, rather than the almost 
200-year cycle on which the Department is currently operating. Although 
this standard is still short of the industry standard of 57 years, it 
will significantly increase the readiness of our military 
installations.
    In your view, is it realistic to hold the Army to such a standard 
when there are fluctuating budget demands and priorities?
    Answer. I believe that it is realistic to hold the Army to the 67-
year facility replacement cycle. There will always be fluctuating 
budget demands and priorities, but the only way to plan for facilities 
that can maintain readiness and support the Army's mission is to set a 
standard. I feel that facilities requirements should not be determined 
by the resources remaining after funding the other mission accounts.
    Question. Other than increased funding for military construction 
and repair and maintenance, what other tools would you suggest the 
Department employ to achieve the 67-year replacement goal?
    Answer. Although increased modernization funding is necessary to 
achieve the 67-year replacement goal, I believe it must be tied to 
increased sustainment funding as is proposed in fiscal year 2002 to 
continue to properly maintain the facilities.
                    modernization/new mission costs
    Question. All components, including both active and Reserve Forces, 
face the challenge of providing facilities required for a new weapon 
system or the assignment of a new mission. This is especially 
challenging to the Reserve components, which have been assigned new 
missions or weapons systems and then expected to fund the new 
facilities from their limited military construction funds.
    Do you believe the funding for new equipment support facilities 
should be programmed as part of any given program's acquisition cost?
    Answer. Yes, I believe that the Army should include the RC 
infrastructure costs as part of the acquisition development program. 
Funding should be provided in sufficient lead-time for additional 
modification or construction of the facilities that will support the 
systems being fielded. These facilities improvements could include the 
upgrade and construction of new buildings, training ranges, training 
areas and communications backbone (i.e., digital backbone on 
installations to tie-in equipment with integrated testing/training 
components in the motor pools and on ranges). Providing funding for the 
infrastructure cost as part of the fielding of new equipment allows for 
better planning, because the full requirement is captured and allows 
the Program Manager to control the phasing/sequencing of facilities as 
the new system(s) are acquired or new units activated.
    Question. What are your views on the assignment of new missions to 
the Reserve components without specifically programming the funds in 
the military construction program to support those missions?
    Answer. I feel that any new missions should be supported by the 
appropriate military construction projects.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army (Installations and Environment)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                  integrated training area management
    1. Senator Warner. Dr. Fiori, in response to advance questions 
regarding development and implementation of a comprehensive strategy 
for encroachment issues, you indicated that you would work to improve 
the Army's management of ranges. The Integrated Training Area 
Management (ITAM) program supports sustainable range use and compliance 
with environmental laws and regulations. It is my understanding, 
however, that the fiscal year 2002 budget request reflects funding 
shortfalls for the ITAM program. Dr. Fiori, if confirmed, how would you 
propose to address such funding shortfalls in the out years?
    Dr. Fiori. I recognize that the ITAM program is a critical 
component to sustainable ranges and long-term readiness. I will make 
sustainable ranges a priority within my office. The Army staff will 
continue to work with the Major Commands to document and prioritize 
ITAM funding requirements. The ITAM program will continue to compete 
for funds along with other high priority programs that are critical to 
readiness. The Army funds ITAM as an Operational Readiness (OPRED) 
program and will continue to work to meet critical program funding 
requirements.

                       family housing improvement
    2. Senator Warner. Based on what you know of the department's 
ongoing efforts to improve military family housing, do you believe the 
2010 goal is achievable and are you committed to the goal?
    Dr. Fiori. The Army believes that the 2010 goal is achievable and 
is strongly committed to it. The Army has a long-range investment plan 
that reaches the Secretary of Defense's goal to eliminate all 
inadequate family housing by 2010. It also supports the Department's 
three-pronged initiative to eliminate out-of-pocket housing expenses 
for soldiers living in private houses by 2005, to increase the use of 
housing privatization in the United States, and to continue reliance on 
traditional military construction for revitalizing Army-owned housing.

                          facility conditions
    3. Senator Warner. The condition of our military facilities is 
deplorable. After years of insufficient resources for the construction 
of new facilities or the maintenance of those in existence, many of the 
buildings in which our military personnel live and work have 
deteriorated to an unacceptable level. What actions will you pursue to 
correct this problem?
    Dr. Fiori. The Army plans to implement the Army Facility Strategy 
(AFS). The AFS is the centerpiece of our efforts to fix the deplorable 
current status of Army facilities and requires a two-pronged approach. 
The first prong is full sustainment funding to halt further 
deterioration of our facilities. The second prong is to restore and 
modernize those critical facilities that are in the worst shape. We 
have identified 10-year increments of funding that will bring critical 
facilities to a C1 condition We cannot wait on a 67-year 
recapitalization rate to fix these key facilities. The first 10-year 
increment includes Vehicle Maintenance Facilities and Supporting 
Hardstand, General Instruction Buildings, Physical Fitness Facilities, 
Trainee Complexes (spread over two 10-year increments), and U.S. Army 
Reserve Centers and National Guard Readiness Centers (both spread over 
three 10-year increments). The AFS continues the investment strategy 
that we have followed successfully in the Army barracks upgrade 
program. We will continue with our current programs to upgrade 
facilities. The Army began upgrading or replacing its barracks 
complexes in 1994. This will continue through fiscal year 2008. We are 
also proceeding on a master plan to privatize or upgrade with Military 
Construction the Family Housing stock by 2010.

                              encroachment
    4. Senator Warner. What actions will you propose to ensure that 
encroachment does not prevent the Armed Forces from effectively 
training and operating both at home and abroad?
    Dr. Fiori. The Army uses the term ``encroachment'' to refer to all 
external influences threatening or constraining testing and training 
activities required for force readiness and weapons acquisition. Such 
encroachment stems from environmental (e.g., noise, endangered species, 
unexploded ordnance, and munitions constituents), social (e.g., urban 
sprawl), and economic (e.g., changing land values) influences. Impacts 
include, but are not limited to, restrictions on available testing and 
training locations; restrictions on available times and duration for 
testing and training; reduced effectiveness of testing and training 
activities; and, restrictions on weapons systems, equipment, and 
munitions used during testing and training.
    Unit commanders have not reported lowered training ratings solely 
due to encroachment issues. However, several units reporting reduced 
readiness ratings have provided comments on their Unit Status Reports 
identifying training constraints. Instead of allowing these constraints 
to reduce unit training status, commanders have developed ``work-
arounds'' to continue training to maintain their readiness posture and 
to accomplish the mission. Although these ``work-arounds'' must support 
training requirements based on doctrinal standards, they make the 
training experience sub-optimal. When training combines a number of 
``work-arounds,'' the adverse impacts on training are magnified and 
cumulative.
    The Army's comprehensive effort to ensure readiness and minimize 
impacts of encroachment is the Sustainable Range Program (SRP). The 
objective of SRP is to maximize the capability, availability, 
accessibility of ranges and training land to support doctrinal training 
and testing requirements. SRP is based on three tenets: (1) Develop and 
Maintain Scientifically Defensible Data--have complete data on all 
aspects of our ranges--their operational characteristics as training 
facilities, their physical characteristics as real property, and their 
characteristics as part of the natural and cultural environment. (2) 
Integrate Management across the four disciplines that directly affect 
ranges: range operations and modernization; facilities and installation 
management; explosives safety; and environmental management. (3) 
Establish Outreach Campaign to inform and influence decision-makers and 
leaders to improve community understanding of why the Army must conduct 
training and testing, and how we are moving to a more sophisticated 
management approach to ensure that the concerns of the public are 
addressed. The Army Deputy Chief of Staff for Operations and Plans 
(DCSOPs) has the lead on this initiative and is working with my office 
and the other functions within the Army staff to develop and implement 
SRP.
    We would ask Congress to support the Army's effort to ensure that 
encroachment does not prevent effective training in the following ways.
    1. Support and resource implementation of the Army's SRP program. 
SRP is the foundation for sustaining live training and the environment 
on our ranges. As we have in the past, we will continue to improve 
range operations, range modernization, state-of-the-art land 
management, research on munitions effects and management of unexploded 
ordnance, and public outreach. Although final funding levels have not 
yet been established, we ask Congress to support this important 
program.
    2. Support and foster cooperation among regulators and the 
military, emphasizing the need to balance military readiness concerns 
and environmental regulation. The Army believes that Congress should 
continue to recognize that the training required for Army readiness is 
a positive societal good and a legal mandate. Defense of our Nation is 
an important requirement that benefits all citizens. I believe there 
are ways to balance the needs of the military with the needs of the 
environment. Congress should encourage regulatory agencies to work with 
the DOD Components to develop compliance methods that support both 
regulatory and military objectives.
    3. Undertake legislative initiatives to clarify statutory 
requirements that apply to military operations. As currently written, 
several statutes contain broad discretionary enforcement thresholds 
that are based on the assessment of the regulatory authority as to 
whether a given condition presents a ``potential'' risk or ``imminent'' 
hazard to human health or a particular natural resource. While the Army 
is not seeking to avoid our responsibilities to the American people or 
seeking relief from compliance with environmental statutes, the lack of 
consistent and measurable standards limits the Army's ability to plan, 
program, and budget for compliance requirements. In light of the 
Secretary's current strategic review, it would be premature to discuss 
specific proposals, but I look forward to working with other Federal 
agencies and Congress.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                       family housing improvement
    5. Senator Thurmond. Based on what you know of the department's 
ongoing efforts to improve military family housing stock, do you 
believe the 2010 goal is achievable and are you committed to that 
effort?
    Dr. Fiori. The Army believes that the 2010 goal is achievable and 
is strongly committed to it. The Army has a long-range investment plan 
that reaches the Secretary of Defense's goal to eliminate all 
inadequate family housing by 2010. It also supports the Department's 
three-pronged initiative to eliminate out-of-pocket housing expenses 
for soldiers living in private houses by 2005, to increase the use of 
housing privatization in the United States, and to continue reliance on 
traditional military construction for revitalizing Army owned housing.

                      67-year replacement standard
    6. Senator Thurmond. Although funding is key, proper management of 
the assets is critical if the Department is to achieve this goal. Based 
on your knowledge of how the Department currently manages its 
facilities, what management improvements would you recommend?
    Dr. Fiori. The Army manages its installations in an expert and 
professional manner. We will continue to improve by establishing 
accountability that ensures maximum performance with funds provided by 
Congress as measured by well defined metrics.
    We have implemented several efficiency initiatives to cut the cost 
of installation operations and become more business oriented. These 
initiatives include competitive sourcing, lease reduction, facilities 
demolition, utilities privatization, family housing privatization, and 
public/private partnership. Public/private partnership and 
privatization show great promise for the future and are tools that will 
help us achieve the desired 67-year facility replacement cycle. Public/
private partnership and privatization allow us to maximize use of our 
resources to manage and maintain our real property assets while taking 
advantage of private sector experience expertise, and funding. We are 
working closely with Congress to make these initiatives successful and 
establish the necessary authorities to achieve ours and DOD's 
management goals.
    After doing all we can to minimize the cost of sustaining our 
infrastructure, we must fully fund that cost. To that end, our most 
important recommendation is to fully support the Army's request for 
sustainment, restoration, and modernization (SRM) funding.

                             base closures
    7. Senator Thurmond. Since each of you, if confirmed, will have a 
significant role in any future base closures I would like your views on 
how we can minimize the impact of the base closure process on our 
communities.
    Dr. Fiori. We have learned valuable lessons from implementing the 
results of previous base realignment and closure (BRAC) decisions. 
Reducing base closure impacts can best be achieved by early involvement 
of the public/private sector in determining potential property reuse, 
financing of reuse development, and the environmental clean up. The 
ability to simultaneously plan the reuse in conjunction with the 
necessary environmental efforts saves limited resources, reduces 
timelines and is crucial to both the Army and the communities involved. 
Leveraging private sector funding will significantly increase the 
communities' ability to move forward with the creation of new jobs. 
Additionally, the Army should inform the affected communities early-on 
of the various options available for disposal. The communities must 
quickly determine whether they want to be directly involved in the 
disposal or allow the Army to market the closing properties based on 
Community Reuse Plans. Mutual cooperation, sharing of information and 
early private sector involvement will greatly lessen the impact the on 
local communities.

                            force protection
    8. Senator Thurmond. One of the greatest issues facing our military 
services is force protection. Although the focus in this area is on 
protecting our forward deployed forces, we must be concerned with our 
Continental United States (CONUS) installations, which in many 
instances are integrated into our communities. Dr. Fiori, how do we 
ensure force protection on the installation without completely 
separating the community from the installation?
    Dr. Fiori. Open communication, community interaction, and a 
thorough information campaign help implement and maintain an 
installation force protection plan. Each installation Commander 
performs a risk analysis to make informed decisions on the required 
levels of restricting access to installations, as well as Random 
Antiterrorism Measures (RAMs).
    Key to this is the involvement of public affairs officers and 
liaison activities with leaders in local government, public agencies, 
civic organizations, and the local public media. In drafting and 
executing the information campaign we begin by identifying installation 
and community issues while educating the local populace as to the 
necessity of the decision. In many cases, not all, the local community 
concerns can be alleviated thus insuring community knowledge while 
establishing the appropriate force protection measures to counter the 
threat.

                        utilities privatization
    9. Senator Thurmond. Based on your knowledge of the utility 
privatization effort, what are your concerns regarding the total 
reliance on contractors to provide utility services?
    Dr. Fiori. Our main concerns for total reliance on contractors for 
utilities services focus on security and cost effectiveness. If a 
privatization effort does not pass these two tests, we do not 
privatize. Otherwise, we believe it is in the Army's best interest to 
privatize these non-core functions to entities better equipped to 
operate and maintain the utilities we need.

                   support for the reserve components
    10. Senator Thurmond. Dr. Fiori, what assurance can you provide 
that the National Guard and Army Reserve will receive funding at levels 
sufficient to sustain their readiness and quality of life?
    Dr. Fiori. We are one Army--Active, Guard, and Reserve. I will 
continue to develop requirements for all three components alike. The 
Army Facility Strategy fully integrates Active, Guard, and Reserve 
requirements into a unified funding posture. I believe funding 
distributed in this manner will be sufficient to sustain all 
components' readiness and quality of life.
 relationship with assistant chief of staff for installation management
    11. Senator Thurmond. Dr. Fiori, what is the relationship between 
the Assistant Chief of Staff for Installation Management and the Office 
of the Assistant Secretary of the Army for Installations and 
Environment?
    Dr. Fiori. We have a very close working relationship between the 
two staffs. Our mission and objectives are closely related, 
intertwined, and mutually supportive.
    We have a small Secretariat staff focused on policy and oversight 
of installation and environmental concerns. The Assistant Chief of 
Staff for Installation Management (ACSIM) has a staff responsive to the 
needs of the Secretariat while programming for installation and 
environmental functions, and providing implementing guidance and 
execution oversight.
    The separate functions of the two staffs provide the benefits of 
civilian leadership and oversight of the military on installation and 
environmental operations, and the opportunity to separate the day-to-
day oversight from the long-term vision and policy development. They 
also provide two separate perspectives on the requirements and 
solutions to the challenge of furnishing top quality installations for 
our soldiers, their families and our civilian workforce.

    12. Senator Thurmond. Dr. Fiori, what, if any, functions are 
redundant between the two positions?
    Dr. Fiori. While the roles of the two offices are closely related, 
the only overlap seems to be in the execution of the Residential 
Communities Initiative (RCI) and Historic Properties initiatives. While 
these functions have recently been managed from the Army Secretariat, I 
am considering returning these functions to the Assistant Chief of 
Staff for Installation Management (ACSIM).

                           contract1ng reform
    13. Senator Thurmond. Do you believe that the Department could 
benefit from contracting reform? 
    Dr. Fiori. The Army must continue to look for innovative 
contracting approaches to achieve cost-effective cleanup. However, I do 
not think that we need major contracting reform within the Department's 
cleanup program. The Rocky Mountain Arsenal program management contract 
concept, while the right contract mechanism for Rocky Mountain Arsenal, 
is not the solution for all cleanup projects. Many sites will benefit 
from contracting methods such as Guaranteed Fixed Price Remediation and 
privatization initiatives, while other cleanups will be effectively 
executed using existing approaches in which we have established a broad 
base of expertise. I will make every effort to use the best contracting 
methodology depending of the specific circumstances.

    14. Senator Thurmond. Will you commit to studying the Rocky 
Mountain Arsenal Program Management Contract in order to evaluate its 
applicability to other projects in your Department?
    Dr. Fiori. Yes, I will ensure the Rocky Mountain Arsenal Program 
Management Contract process is considered in other projects when it 
makes sense. The Army is currently evaluating the benefits of several 
innovative contracting initiatives for environmental cleanup, including 
the Rocky Mountain Arsenal program management contract concept. We will 
consider the lessons learned in contracting at Rocky Mountain Arsenal 
for possible application to other cleanup projects, particularly large, 
complex, multi-year projects.
                                 ______
                                 
    [The nomination reference of Dr. Mario P. Fiori follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Dr. Mario P. Fiori of Georgia, to be an Assistant Secretary of the 
Army, vice Mahlon Apgar IV.
                                 ______
                                 
    [The biographical sketch of Dr. Mario P. Fiori, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Dr. Mario P. Fiori

    Mario P. Fiori, born in Frankfurt Germany, was raised in 
Brooklyn, NY. After graduating from Brooklyn Technical High 
School, he attended and graduated from the U.S. Naval Academy 
in 1963. After serving 1 year on a diesel submarine, he entered 
the graduate program at Massachusetts Institute of Technology. 
He earned a Masters in Mechanical Engineering (1966), a Nuclear 
Engineer degree (1966), and a Ph.D. in Nuclear Engineering 
(1968).
    He then served in the nuclear submarine force as a 
department head in attack submarine U.S.S. Pargo (SSN 650), 
Executive Officer in Poseidon missile submarine U.S.S. George 
Washington Carver (SSBN 656), commanding officer in attack 
submarine U.S.S. Spadefish (SSN 668), and Squadron Commander of 
Submarine Squadron 4. His shore assignments included: submarine 
analyst on the CNO staff, DOD representative to the Federal 
Energy Administration, Special Assistant to the President 
Reagan's Science Advisor, Dr. George Keyworth II, and, prior to 
retirement, Commander, Naval Underwater Systems Center, 
Newport, RI.
    In 1990-1991, he was President of MPF Associates, his 
consulting firm. In 1991, Dr. Fiori joined the Senior Executive 
Service in the Department of Energy and served as the 
Departmental Representative to the Defense Nuclear Facilities 
Safety Board. The Board, a congressionally mandated body, has 
safety oversight of all DOE weapon's facilities. In 1993, the 
Secretary of Energy reassigned Dr. Fiori to be Manager, 
Savannah River Site, Aiken, SC.
    He left DOE in October 1997 to start his own company, 
Compass Associates, Inc., a consulting company focusing on 
proper conduct of operations, safety of operations and business 
development.
    He is married to Susan Bayles and has three daughters, 
Cristina, Alison, and Katherine.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Mario P. 
Fiori in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Mario Peter Fiori (Guenter Georg Kohl--birth name changed upon my 
adoption by my stepfather, Silvano Louis Fiori in 1951).

    2. Position to which nominated:
    Assistant Secretary of the Army, Installations and Environment 
(ASA-I&E).

    3. Date of nomination:
    July 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]
    Compass Associates Inc. is an S-Corp established and owned by Dr. 
Fiori. He is the only employee.)

    5. Date and place of birth:
    December 14, 1941; Frankfurt/M, Germany.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Susan Wintfield Bayles.

    7. Names and ages of children:
    Cristina Fiori Argeles, 28; Alison Paige Fiori, 26; Katherine Leigh 
Fiori, 23.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Brooklyn Technical High School, Brooklyn, NY, 9/55-6/59--Diploma.
    U.S. Naval Academy, Annapolis, MD, 7/59-6/63--Bachelor of Science.
    Massachusetts Institute of Technology, 9/64-9/68--Master of 
Mechanical Engineer and Nuclear Engineer Degree, 9/66 and Doctor of 
Philosophy in Nuclear Engineering, 2/69.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    10/97 to Present--Founder and Owner/President of consulting 
company, Compass Associates Incorporated. I was sole employee and the 
company address was the same as my home address. I provided business 
development advice, served as President of a software company, RTS-
Enabling Technology in Richland, WA, served as advisor to different 
CEOs and participated in several significant ``red-team'' efforts for 
various nuclear related companies.
    10/91-10/97--Served as SES-6 in the Department of Energy. I 
initially worked as the liaison officer between the Department of 
Energy and the Defense Nuclear Weapons Facility Board. In 1/93 I was 
reassigned to assume the responsibilities of Manager, Savannah River 
Site, Aiken, SC.
    5/90-9/91--Sole Proprietor of ``MPF Associates,'' a consulting firm 
concentrating on business development and defense related studies. 
Served as a Senior Fellow at the Hudson Institute, and had several 
other commercial clients.
    11/89-3/90--Engineer, Stone and Webster Engineering Corp, 
Washington DC office. I was under training as a senior business 
developer in the Wash DC office.
    6/63-10/89--U.S. Naval Officer. Served in various nuclear submarine 
billets including Commanding Officer of an attack submarine, U.S.S. 
Spadefish (SSN 668) stationed in Norfolk, VA. Submarine Squadron 
Commander of Submarine Squadron 4 in Charleston, SC, and Commander, 
Naval Underwater Systems Center, Newport, RI. Shore duties included 4 
years at MIT, 2 years as a System Analyst for submarine naval programs 
in the Pentagon, Washington DC (6 months) and then the DOD Liaison with 
the Federal Energy Office/Administration for 18 months, 2 years as 
Executive/Military Assistant to Dr. George Keyworth, President Reagan's 
Science Advisor.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    President/Owner of Compass Associates Inc. (At present I have no 
consulting work with the exception of providing management and business 
development assistance to Trans-Digital Corp, located in Arlington, 
VA.)

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.

----------------------------------------------------------------------------------------------------------------
             Organization                Type of Organization       Inclusive Dates              Comments
----------------------------------------------------------------------------------------------------------------
Citizen's for Nuclear Technology       Educational............  1995-Present...........  This is org supports
 Awareness.                                                                               all things nuclear.
Inter Agency Seminar Group...........  Social/Educational.....  1983-Present...........  This group meets approx
                                                                                          monthly and invites
                                                                                          speakers for
                                                                                          luncheons.
West Lake Country Club...............  Social.................  1993-Present...........  This supports our local
                                                                                          community.
United Way...........................  Charity................  1995-Present...........  Member of the Board.
American Nuclear Society.............  Professional...........  1989-Present...........
Republican National Comm (President's  Political..............  1998-Present...........
 Club).
Norwood's Capitol Club...............  Political..............  2000-Present...........  Charlie Norwood (R) is
                                                                                          GA 10th District
                                                                                          Congressman.
USNA Alumni Assoc....................  Fraternal..............  1963-Present...........
USNA Athletic Assoc..................  Other..................  2001...................  I have been member in
                                                                                          past but allowed
                                                                                          membership to lapse.
Church of the Good Shepherd, Augusta   Religious..............  1993-Present...........
 GA.
Naval Submarine League...............  Professional...........  1980-Present...........
Navy League..........................  Professional...........  1989-Present...........
Association for the Advancement of     Civic..................  1991-Present...........
 Retired People.
The Retired Officers Association.....  Civic..................  1989-Present...........
----------------------------------------------------------------------------------------------------------------


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    I was a volunteer and surrogate speaker (never actually provided 
such service) for the Virginia Bush for President Committee. I also 
prepared a position paper regarding nuclear submarines.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

------------------------------------------------------------------------
  Individual/Campaign organization      Political Party     Contribution
------------------------------------------------------------------------
Lindsey Graham for Senate..........  Republican...........        200.00
Charlie Norwood for Congress.......  Republican...........        250.00
Charlie Norwood for Congress.......  Republican...........        200.00
The Presidents Club................  Republican...........        110.00
Citizens to Elect Tom Cross........  Republican...........        250.00
Lindsey Graham for the Senate......  Republican...........        100.00
Charlie Norwood for Congress.......  Republican...........        200.00
Committee to Elect Lindsey Graham..  Republican...........        200.00
Norwood for Congress...............  Republican...........        200.00
Norwood for Congress...............  Republican...........        200.00
Norwood for Congress...............  Republican...........        150.00
Bush for President.................  Republican...........        500.00
Charlie Norwood for Congress.......  Republican...........        100.00
Bush Primary for President.........  Republican...........        500.00
Miscellaneous contributions........  Republican...........        200.00
------------------------------------------------------------------------


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Department of Defense Superior Service Medal.
    Four Navy Legion of Merit Medals.
    Department of Defense Commendation Medal.
    Three Navy Commendation Medals.
    Two Navy Unit Commendations (NUC).
    Three Navy Meritorious Unit Commendations (MUC).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Except for a Ph.D. thesis synopsis, I have had nothing published.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have made no speeches on the topics relevant to the position for 
which I have been nominated.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    I do agree.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             Dr. Mario Peter Fiori.
    This 13th day of July, 2001.

    [The nomination of Dr. Mario P. Fiori was reported to the 
Senate by Senator Cleland on August 2, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2001.]
                              ----------                              

    [Prepared questions submitted to H.T. Johnson by Chairman 
Levin prior to the hearing with answers supplied follow:]

                                                   July 17, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   H.T. Johnson. 
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. I am committed to the complete and effective implementation 
of these reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe these reforms have been accepted and implemented. 
They have clarified the responsibilities and authorities of the 
Secretary of Defense, the Secretaries of the Military Departments, the 
Joint Chiefs of Staff, and the Chairman of the Joint Chiefs. These 
reforms have improved our joint war fighting capabilities.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe the most significant improvement has been to 
strengthen the joint war fighting capability of our country. Our 
military is more capable and more lethal because our Services can work 
better together. If confirmed, I will continue the Department of the 
Navy's commitment to the principles of joint war fighting.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am unaware of legislative proposals to amend Goldwater-
Nichols, and do not have any specific suggestions to offer. If 
confirmed, I will evaluate any proposal to amend Goldwater-Nichols on 
its merits.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Navy (Installations and Environment)?
    Answer. According to existing practices, the role of the Assistant 
Secretary of the Navy (Installations and Environment) is to formulate 
policy and procedures for the effective management of Navy and Marine 
Corps: real property, housing, and other facilities; environmental 
protection ashore and afloat; safety and occupational health for both 
military and civilian personnel; and timely completion of closures and 
realignments of installations under base closure laws. If confirmed, I 
will pursue these duties within the context of the overall priorities 
of the Secretary of the Navy, as well as any other areas he may assign.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe I possess extensive experience in the public and 
private sectors in operating and maintaining facilities in an 
environmentally responsible manner. I have served in an executive 
capacity in various phases of the BRAC process. I believe I have 
demonstrated a deep and abiding commitment to ``the military family'' 
in my many previous assignments within the Department of Defense and in 
the private sector. I will continue that commitment to the sailors, 
marines, civilians, and their families in the Department of the Navy.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Navy (Installations and Environment)?
    Answer. If confirmed, I will seek and listen to the views of those 
within the Department of the Navy, as well as those of the Secretary of 
Defense and the other Military Departments. I will also seek and listen 
to the advice and counsel of Congress, the communities and states where 
we operate, and other experts in my areas of responsibility.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Navy would prescribe for you?
    Answer. I expect the Secretary of the Navy to prescribe the duties 
and functions listed above. The Secretary has not described any other 
duties that he may assign to me.
    Question. In carrying out your duties, how will you work with the 
Secretary of the Navy, the Under Secretary of the Navy, and the Deputy 
Under Secretary of Defense (Installations and Environment)?
    Answer. If confirmed, I will work closely with the Secretary of the 
Navy, the Under Secretary of the Navy, the Deputy Under Secretary of 
Defense (Installations and Environment), and the other Assistant 
Secretaries of the Navy consistent with the appropriate laws and Title 
10 of the U.S. Code and the priorities of the Secretary of the Navy. I 
will work hard to foster cooperation and teamwork among the civilian 
and military leadership in the Department of the Navy.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Navy (Installations and 
Environment)?
    Answer. I believe the major challenges include: improving the 
overall condition of the shore infrastructure, including solving long-
standing housing inadequacies; resolving encroachment concerns that may 
limit the ability of our sailors and marines to train under realistic 
conditions before going into harm's way; completing the environmental 
cleanup and property disposal of bases listed under previous Base 
Closure and Realignment statutes; providing more efficient facilities 
consistent with future force structure needs; and securing alternative 
shore facilities for pre-deployment readiness training.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will carefully evaluate the status of 
ongoing initiatives. I will develop and pursue plans consistent with 
the priorities of the Secretary of Defense and the Secretary of the 
Navy. Where feasible, I would like to apply commercial methods and 
industry practices to address these challenges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Navy 
(Installations and Environment)?
    Answer. On a national level, I believe the most serious problem 
will be maintaining a proper balance between national security and non-
defense needs. Within the Department of Defense and the Department of 
Navy, I expect there will be a strong competition for resources.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I will work closely with the Secretary of the Navy and the 
Under Secretary of the Navy to support the Secretary's overall goals 
and time lines.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Assistant Secretary of the Navy 
(Installations and Environment)?
    Answer. If confirmed, I will establish priorities consistent with 
those of the Secretary of Defense and the Secretary of the Navy.
                         housing privatization
    Question. Congress has repeatedly expressed its support for 
improving military family housing. Through the Military Housing 
Initiative, the Department of Defense has taken a significant step 
toward improving family housing. However, it will take many more years 
and a significant amount of funding to meet the Department's housing 
needs. An alternative option that has frequently been mentioned to 
resolve the military family housing crisis is to privatize the housing 
and relieve the Services and its commanders of the burden of 
maintaining and managing the family housing program. If confirmed for 
the position of Assistant Secretary of the Navy for Installations and 
Environment, you will have a key role in any decisions regarding 
military family housing.
    What are your views regarding the privatization of family housing?
    Answer. I believe that privatization is an essential tool in 
improving living conditions for sailors, marines, and their families. 
The ability to leverage Government resources through partnership with 
the private sector will help the Navy and Marine Corps to obtain better 
housing faster.
    Question. What is your view of the structure, pace, and general 
goals of the Navy's current housing privatization program? Do you think 
the program should be continued, and if so do you believe the program 
should be modified in any way?
    Answer. I understand that the Department of the Navy recently 
awarded three housing privatization projects, and several more awards 
are planned in the coming months. It is my opinion that the program 
should be continued. If confirmed, I will explore all aspects of the 
program to identify those areas that should be modified.
    Question. The Department of Defense has established 2010 as a goal 
to improve the standards of military family housing.
    Do you believe this goal is realistic and achievable in regard to 
the Department of the Navy?
    Answer. Yes, based on what I have observed, and if confirmed, I 
would like to see us do it sooner.
            ``1+1'' standard for bachelor enlisted quarters
    Question. In recent years the Department of Defense has pursued the 
so-called ``1+1'' standard for unaccompanied housing. While building to 
this standard raises costs, making it more difficult to modernize the 
Department's unaccompanied housing, many believe the greater privacy 
the 1+1 standard offers our enlisted personnel is essential to 
recruiting and retaining quality personnel and is something all 
personnel deserve. Others argue that the 1+1 standard can reduce unit 
cohesion and slow the integration of new personnel into the military 
culture. The Marine Corps, and more recently the Navy, have sought and 
received waivers to build to a ``2+0'' standard that affords less 
privacy but allows them to build new unaccompanied housing faster.
    What is your view of the 1+1 standard?
    Answer. In my view, the 1+1 standard does provide enhanced privacy 
and, therefore, improves the quality of life for single members.
    Question. Do you believe the Navy and Marine Corps should build to 
the same standards as the Army and the Air Force or continue their 
recent waivers of the 1+1 standard?
    Answer. I have not yet been fully briefed on the waivers to the 1+1 
standard. If confirmed, I will work to ensure our sailors and marines 
have a quality place to live. This will include consideration of all 
possible options that are necessary to achieve this goal as quickly as 
possible.
                          competitive sourcing
    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform activities that are 
commercial in nature, including many functions relating to running and 
maintaining our military installations.
    What approach would you recommend to balance the need to maintain 
necessary decision-making functions and technical capabilities in the 
government's civilian workforce, including the knowledge necessary to 
be a ``smart buyer,'' and skills such as civil engineering within the 
military, with the savings that may be available from outsourcing?
    Answer. I understand that the Department of Defense has in place an 
approach called ``Strategic Sourcing'' that has wide acceptance. If 
confirmed, I will work with the Department of the Navy staff to examine 
this approach carefully, and assist in development of alternatives to 
achieve any improvements necessary.
    Question. Do you support the principle of public-private 
competition as the preferred means to make the ``sourcing'' decision 
for such functions?
    Answer. If confirmed, I will work with the Secretary of the Navy 
and the Department of the Navy staff and would welcome the opportunity 
to work with the committee to evaluate the issue of public-private 
competition and whether it should be a preferred means of sourcing 
commercial activities.
    Question. Do you believe that public-private competition results in 
significant savings to the Department of Defense regardless of which 
side wins the competition?
    Answer. I have not reviewed any specific data in this area, so I 
cannot provide an answer. If confirmed, I would welcome the opportunity 
to work with the Department of the Navy staff and the committee to 
evaluate such competition.
    Question. OMB Circular A-76, which establishes the guidelines for 
outsourcing most government functions, is slated for scrutiny by a 
congressionally-mandated panel of government and private experts in 
this area. The panel, chaired by the Comptroller General, is scheduled 
to report to Congress with specific policy and legislative reforms and 
recommendations for changing the way the government conducts out-
sourcing decisions and implements them.
    What is your view of the current A-76 process?
    Answer. If confirmed, I would be happy to participate in the review 
by the congressionally-mandated panel to evaluate and improve the 
process.
    Question. Are there other effective alternatives to achieve the 
benefits of public-private competition?
    Answer. I believe that the work of the above-mentioned panel may be 
useful in developing alternatives that may achieve the benefits of 
public-private competition.
                             base closures
    Question. The President's February 2001 budget blueprint document 
states that ``with 23 percent in estimated excess infrastructure, it is 
clear that new rounds of base closures will be necessary to shape the 
military more efficiently''.
    Do you believe that we need more base closures?
    Answer. I am aware that the Secretary of Defense has expressed a 
desire to conduct more base closures. I support that conclusion.
    Question. Do you believe the Navy has excess infrastructure that 
uses resources that could be applied to higher priorities within the 
Department of the Navy?
    Answer. Any discussion of where there may be excess capacity must 
await the completion of the Quadrennial Defense Review. That will 
identify a vision of how the Department of Defense must be reshaped to 
meet the threats of today and tomorrow to our Nation. Implementing this 
new defense vision will likely involve a shift in the focus and 
priorities of the Military Departments, including its supporting shore 
establishment.
    Question. Based on your service on the Base Closure Commission, do 
you have any suggestions on how to improve the base closure process?
    Answer. Although the base closure process established by the 
Defense Base Closure and Realignment Act is fundamentally sound, if 
confirmed, I will work closely within the Department of Defense and 
Congress to further refine the process in light of the experience 
gained from previous closure rounds. Any specific suggestions, however, 
would be premature before considering the results of the Department of 
Defense's ongoing reviews and the changes they are likely to recommend.
    Question. Based on your extensive experience from all aspects of 
the process--as a military commander, a member of the 1993 Base Closure 
Commission, and as head of the Greater Kelly Development Corporation--
do you believe the process established by the Defense Base Closure and 
Realignment Act of 1990 is a fair and effective way to reduce excess 
military infrastructure and return the property to local authorities?
    Answer. Yes.
    Question. In your view, would changing the base closure process to 
exempt some bases from the independent commission's review make the 
process more or less open, fair, and stressful to communities with 
military installations?
    Answer. Any changes to the base closure process must remain open, 
objective, and fair to all communities. If confirmed, I will consider 
any proposed changes to improve the process.
                                vieques
    Question. For the past 2 years, Naval forces deploying from the 
East Coast of the United States have been unable to conduct live-fire 
training on the Navy's training range on Vieques, Puerto Rico, which 
has degraded the readiness of these forces to execute their wartime 
missions.
    In your view, to what extent are the difficulties the Navy is 
having with respect to training on Vieques unique to this particular 
situation and to what extent might these difficulties be an example of 
future problems at other training ranges?
    Answer. Not having been closely involved with the issues 
surrounding Vieques, I do not know if this is unique to this situation. 
If confirmed, this issue will be high on my priority list.
    Question. The Navy has been looking for an alternative to Vieques 
for 2 years without success to date. Do you believe there are any 
alternatives available to replace the range of training capabilities 
the Navy and Marine Corps have at the Atlantic Fleet Weapons Training 
Facility ranges on and around Vieques?
    Answer. I understand the Secretary of the Navy has established a 
broad study to examine the possibilities.
    Question. In your view, how difficult will it be to find new 
training areas unencumbered by restrictions imposed by neighboring 
populations, civilian air or sea traffic, or the need to protect 
sensitive environmental areas or endangered species should the need 
arise to replace or expand our training ranges in the future?
    Answer. It will be challenging. Encroachment is an issue at many 
military facilities, not just training ranges. If confirmed, I will 
work to seek appropriate solutions.
    Question. If confirmed, what actions would you propose to ensure 
that this kind of problem does not prevent the Navy and Marine Corps 
from effectively training and operating both at home and abroad?
    Answer. If confirmed, I would propose that Navy and Marine Corps 
continue to be good neighbors and stewards of their ranges. I will work 
hard to build and nurture healthy partnerships that respect defense and 
community needs.
                       real property maintenance
    Question. The military departments have consistently struggled to 
maintain their base infrastructure. The backlog of real property 
maintenance has remained high whether budgets were increasing or 
decreasing, and the military is far behind industry standards for 
maintaining and modernizing its facilities.
    Are there any new approaches to this issue that you believe could 
help the Navy move toward a solution of this perennial problem?
    Answer. I believe the solution lies in a combination of reducing 
any excess infrastructure consistent with the recommendations of the 
Quadrennial Defense Review, and a commitment to maintain the remaining 
infrastructure using commercial benchmarks and practices.
                          environmental issues
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include environmental constraints on 
military training ranges, local community efforts to obtain military 
property, airspace restrictions to accommodate civilian airlines, and 
the assignment of radio frequency spectrum away from the Department of 
Defense.
    In your opinion, how serious are these problems for the Department 
of the Navy?
    Answer. I understand encroachment is a very serious problem that is 
having a negative impact on training and testing. I understand these 
impacts include decreased days for testing and training, restrictions 
on the location and timing for testing and training, and limitations on 
the types of training available. The cumulative effect can diminish 
readiness.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges and what actions would you propose to take 
to address them?
    Answer. If confirmed, I will work with the Secretary of the Navy, 
the other military components, the Office of the Secretary of Defense, 
and other Federal agencies to assess the issue from a broad policy 
perspective and resolve a number of specific encroachment issues. I 
will also work closely with Congress on potential changes to existing 
laws to clarify those laws with respect to the proper balance between 
environmental protection and military readiness.
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action, and those that 
will be out of compliance before the next budget cycle.
    Do you believe that continuing funding for this type of 
environmental cleanup is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. Yes. In many respects, the Department of the Navy is just 
like any other big business and must give priority to complying with 
environmental requirements. It is vital that the Navy and Marine Corps 
comply with environmental protection requirements and budget 
appropriately. If confirmed, I also will look for opportunities to be 
proactive rather than reactive. For example, achieving compliance 
through pollution prevention is the preferred method of achieving 
compliance.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of the environmental laws?
    Answer. In general, no. Most of the activities of the Navy and 
Marine Corps, particularly those associated with operating 
installations, can and must comply with environmental laws like the 
private sector. However, application of some environmental laws and 
regulations to unique military training actions should be examined and 
may require some regulatory accommodations to ensure national security.
    Question. Do you support the basic principle of the Federal 
Facilities Act and other laws that Federal facilities, including DOD 
facilities, should be subject to the same standards as comparably 
situated civilian facilities?
    Answer. In general, yes. There may be circumstances where 
environmental regulations must be tailored to accommodate a unique 
military mission or special circumstances related to military training 
while balancing the need to ensure good environmental stewardship.
    Question. The Department of Defense faces a bill for the clean-up 
of unexploded ordnance (UXO) that is at least in the tens of billions 
of dollars, and could well be in the hundreds of billions of dollars. 
At current funding levels, it has been estimated that it would take the 
military services several thousand years to remediate UXO problems on a 
DOD-wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    Answer. If confirmed, I will work with the other Services and the 
Office of the Secretary of Defense, in consultation with Congress, to 
solve this critical question.
    Question. Do you believe that increased investment in UXO 
remediation technologies would be likely to produce more effective and 
efficient remediation processes and substantially reduce the 
Department's long-term clean-up liability (and the time required to 
complete such clean-up)?
    Answer. It makes sense that better technology will provide more 
reliable and cost effective solutions for UXO remediation. If 
confirmed, I plan to address this issue in collaboration with my 
military department counterparts and the Defense Science Board.
                           energy efficiency
    Question. Executive Order 13123 lays out a number of specific steps 
that agencies should take to promote energy conservation. These include 
the use of energy savings performance contracts, utility energy 
efficiency contracts, and other contracts designed to achieve energy 
conservation; conducting energy efficiency audits for approximately 10 
percent of an agency's facilities each year; and exploring 
opportunities for energy efficiency in industrial facilities for steam 
systems, boiler operation, air compressor systems, industrial 
processes, and fuel switching.
    Do you support the use of these energy conservation approaches?
    Answer. Yes
    Question. Are there other steps that you would take, if confirmed, 
to promote energy conservation by the Department of the Navy?
    Answer. If confirmed, I will pursue a combination of investment 
strategies using appropriated and private sector funding to accomplish 
energy saving projects.
    Question. Do you believe that the energy conservation goals 
established in the Executive Order are achievable?
    Answer. Yes
          integration of installations with local communities
    Question. The Department of Defense is in the midst of an effort to 
increase the Basic Allowance for Housing to eliminate out-of-pocket 
housing costs for military families who choose to live off base. This 
policy is intended to encourage more military families to live off base 
and reduce the demand for government housing. In recent years, 
outsourcing of base operations functions on military installations has 
increased substantially. Secretary Rumsfeld has proposed examination of 
additional contracting out in certain areas, including the operation of 
commissaries. All of these policies tend to increase the integration of 
the military into the local community and increase the non-military 
population on our bases.
    At the same time, force protection concerns are leading the 
military services to take steps to close or restrict access to military 
installations and to build force protection measures into the 
construction of schools and other non-military facilities on those 
installations.
    What do you believe is the appropriate level of integration, or 
separation, between military installations and the surrounding local 
communities?
    Answer. This is a question of risk based on many factors. If 
confirmed, I will strive to ensure that military core capabilities are 
protected as necessary, and still seek the appropriate level of 
integration between military installations and the surrounding 
communities.
                            davis-bacon act
    Question. 40 U.S.C. Sec. 276a, commonly known as Davis-Bacon, 
requires that for every contract in excess of $2,000 involving 
construction, alteration, and/or repair of public buildings or public 
works, the prevailing wage in that state shall be paid. When the 
contract cost-floor was set in the 1930s, $2,000 was a substantial sum 
of money, however, inflation during the intervening years has eroded 
the value of the dollar to the point were there is virtually no project 
that is not covered by Davis-Bacon.
    If confirmed, would you support raising the contract threshold to a 
more current standard before Davis-Bacon can be invoked?
    Answer. Yes
    Question. In your personal opinion, what would be an appropriate 
contract cost before Davis-Bacon should apply?
    Answer. One approach is to raise the Davis-Bacon threshold to the 
``simplified acquisition'' threshold, which is currently $100,000. I 
understand that another approach currently under discussion is to raise 
the threshold to one million dollars. If confirmed, I will work with 
the other Services and the Secretary of Defense, in consultation with 
Congress, to support an appropriate new threshold.
                        installation management
    Question. One of the obvious handicaps to the implementation of the 
Family Housing Privatization initiative was the lack of specialists in 
real estate and financial management throughout the Department of 
Defense. A similar shortfall is said to exist in the area of business 
managers and installation managers.
    If the Navy is experiencing similar shortfalls, should these 
positions be filled with contract or civil service personnel? Please 
explain.
    Answer. If confirmed, this will be a matter that requires my review 
and attention.
    Question. As the Navy enters a new era of defense reform and 
business practices, does it have a program to ensure it has a cadre of 
real estate and business managers?
    Answer. I am not aware of any comprehensive program focused on 
these areas. If confirmed, I intend to ensure the Department has a 
workforce that is properly sized and has the necessary skills to reap 
the savings and efficiencies sought through privatization.
                             ship disposal
    Question. In its December 2000 report to Congress on the Ship 
Disposal Project, the Navy expressed a commitment to eliminating any 
environmental risks posed by its inactive ships by reducing the size of 
the Inactive Fleet. A decision regarding a long-term ship scrapping 
program was deferred, however. The communities in which these vessels 
are berthed recognize that the potential for environmental and 
navigational problems increases with the length of time they are 
stored.
    Do you believe that it is important to develop a budget and long-
term procurement strategy for ship disposal to dispose of these ships 
in an efficient and responsible manner, while considering the full 
range of competitive contracting procedures?
    Answer. Yes. If confirmed, I will work on such a strategy with the 
Assistant Secretary of the Navy (Research, Development, and 
Acquisition), who has responsibility for ship disposal
    Question. If confirmed, how would you propose to approach this 
problem?
    Answer. If confirmed, I expect to provide advice regarding 
environmental, safety and health issues to the Assistant Secretary of 
the Navy (Research, Development, and Acquisition). The objective will 
be to ensure that any ship disposal actions are done in full compliance 
with environmental, safety, and occupational health laws.
                     research on marine environment
    Question. Tensions between Navy fleet operations and protection of 
the marine environment is an area that has been characterized as one of 
several environmental encroachment issues. Some of these tensions may 
be resolved through continued support for investments in science and 
technology.
    If confirmed, would you support the Navy's ongoing research efforts 
in this area?
    Answer. Yes. I understand that the Navy funds numerous research 
projects and programs to better understand the issue of sound in water 
and its effect on the marine environment. I support continuing this 
work so that the Navy can continue to operate and train while still 
being good stewards of the marine environment.
    Question. How else might you propose to resolve these tensions?
    Answer. I believe the Navy must use the best available science, 
keep the public properly informed, and continue to keep its process 
open and available for oversight by regulators.
                          airspace management
    Question. Commercial air traffic is expected to increase 6 percent 
annually, and military airspace use will also increase with the next 
generation of high performance weapon systems. As a result of the 
pressures associated with commercial air traffic congestion, noise, and 
other environmental concerns, the acquisition and use of special use 
airspace has evolved into a challenging endeavor for all of the 
military departments.
    If confirmed, how would you view your role in addressing these 
issues?
    Answer. The Nation's airspace is a limited resource that commercial 
aviation, general aviation, and military aviation must continue to 
share safely and efficiently. If confirmed, I will work closely with 
the other military services, the Office of the Department of Defense, 
and the Federal Aviation Administration to find ways to ensure the 
availability of special use airspace necessary to conduct the military 
training and testing that is necessary to defend the Nation while at 
the same time recognizing the interest of other airspace users.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy (Installations and Environment)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                       brac environmental cleanup
    1. Senator Warner. Mr. Johnson, in its report on Issues and 
Alternatives for Cleanup and Property Transfer of Base Realignment and 
Closure (BRAC) Sites, dated August 1, 2000, the Institute for Defense 
Analyses noted that despite Department of Defense efforts to accelerate 
the program by working with effected communities and with Congress, 
property transfer is taking too long and goals are not being met. Many 
BRAC acres have not yet been transferred. These problems are compounded 
by recent indications that there are funding shortfalls for BRAC 
cleanup in the fiscal year 2002 budget, about $92 million in the Navy 
account and $55 million in the Air Force account. The lack of progress 
in the transfer of BRAC properties and inadequate funding support 
within the military departments make it difficult to support future 
rounds of BRAC.
    How do you propose to address the effect of the fiscal year 2002 
shortfalls in the Navy BRAC account?
    Mr. Johnson. If confirmed, I will make the transfer of BRAC 
properties a priority. I will work with the Secretary of the Navy, as 
well as the Navy and Department of Defense Comptrollers, and the 
appropriate committees to ensure that the high priority shortfalls are 
included in the budget.

    2. Senator Warner. What role do you expect to play in addressing 
the need to renegotiate cleanup milestones and to address concerns 
regarding delayed property transfers?
    Mr. Johnson. If confirmed, I will do my best to ensure that Navy 
meets all agreed milestones. I am committed to make the transfer of 
BRAC properties to those communities that have long been strong 
supporters of the defense of our Nation a priority. Before I acquiesce 
to renegotiating agreed to milestones, however, I will work with the 
Secretary of the Navy, as well as the Navy and Department of Defense 
Comptrollers, and the appropriate committees to ensure that the high 
priority shortfalls are included in the budget and do not impede 
property transfer.

                       environmental encroachment
    3. Senator Warner. Mr. Johnson, based on the testimony provided by 
the Services at the Readiness and Management Support Subcommittee 
hearing on March 20, 2001, it appears that the time is right for the 
development and implementation of a comprehensive strategy that 
addresses both the individual and the cumulative effects of 
environmental encroachment issues.
    How do you propose to facilitate the development and implementation 
of a comprehensive strategy intended to address readiness concerns 
related to these encroachment issues?
    Mr. Johnson. I am committed to developing a comprehensive strategy 
for balancing military readiness with environmental stewardship. In 
many cases we have done so well with the latter that there is potential 
for it to adversely to affect the former. Accomplishing this balance 
will require Department of Defense engaging Federal and state 
environmental protection agencies to assess the issue from a broad 
policy perspective and resolve a number of specific encroachment 
issues. I will also work closely with Congress on potential changes to 
existing laws to clarify those laws with respect to the proper balance 
between environmental protection and national security.

                       family housing improvement
    4. Senator Warner. The Department of Defense has established 2010 
as a goal to bring up to standard the family housing for our military 
families. The vast majority of the existing family housing is more than 
30 years old and has had very limited renovation due to fiscal 
constraints. Although the Department has made progress toward achieving 
the 2010 goal, the bulk of the improvement effort will have to be 
funded and enacted under your leadership, assuming you are confirmed.
    Based on what you know of the department's ongoing efforts to 
improve military family housing, do you believe the 2010 goal is 
achievable and are you committed to that goal?
    Mr. Johnson. Based on what I have observed, the Department of the 
Navy can achieve the 2010 goal. If confirmed, I would like to see us do 
it sooner.

                          facility conditions
    5. Senator Warner. The condition of our military facilities is 
deplorable. After years of insufficient resources for the construction 
of new facilities or the maintenance of those in existence, many of the 
buildings in which our military personnel live and work have 
deteriorated to an unacceptable level.
    What actions will you pursue to correct this problem?
    Mr. Johnson. I believe the solution lies in a combination of 
reducing any excess infrastructure consistent with the recommendations 
of the Quadrennial Defense Review, and a commitment to maintain the 
remaining infrastructure using commercial benchmarks and practices.

                              encroachment
    6. Senator Warner. Some of the most significant issues that will 
impact the readiness of the Armed Forces as we enter the 21st century 
could be categorized as outside encroachment upon military resources. 
This encroachment includes environmental constraints on military 
training ranges, local community efforts to obtain military property, 
airspace restrictions to accommodate civilian airlines, and many 
others. Unless these issues are effectively addressed, our military 
forces will find it increasingly difficult to train and operate at home 
and abroad.
    What actions will you propose to ensure that encroachment does not 
prevent the Armed Forces from effectively training and operating both 
at home and abroad?
    Mr. Johnson. In my experience, past responses to what we now call 
encroachment were frequently issue-specific and not focused on long-
term objectives or coordinated with others facing similar challenges. I 
believe two types of actions are necessary. First, we must assure that 
our forces assess our training operations to ensure we are in full 
compliance where possible. Where full compliance may not be possible 
consistent with our national security mission, I would work with 
Congress to seek clarifications to appropriate laws.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                       family housing improvement
    7. Senator Thurmond. The Department of Defense has established 2010 
as a goal to bring up to standard the family housing for our military 
families. The vast majority of the existing family housing stock is 
more than 30 years old and has had very limited renovation due to 
fiscal constraints. Although the Department has made progress toward 
achieving the 2010 goal, the bulk of the improvement effort will have 
to be funded and enacted under your leadership, once confirmed.
    Based on what you know of the departments ongoing efforts to 
improve the military family housing stock, do you believe the 2010 goal 
is achievable and are you committed to that effort?
    Mr. Johnson. Based on what I have observed, the Department of the 
Navy can achieve the 2010 goal. If confirmed, I would like to see us do 
it sooner.

                      67-year replacement standard
    8. Senator Thurmond. The Department of Defense has a dismal record 
in funding the repair and replacement of its infrastructure. Under the 
historic funding profile, it would take more than 200 years to replace 
the existing infrastructure. The prevailing industry standard is to 
replace its facilities on a 57-year cycle. Secretary Rumsfeld, 
concurrent with his budget submission, has established a 67-year 
replacement standard for DOD facilities and has established a funding 
profile to support this standard.
    Although funding is key, proper management of the assets is 
critical if the Department is to achieve this goal. Based on your 
knowledge of how the Department currently manages its facilities, what 
management improvements would you recommend.
    Mr. Johnson. I believe the solution lies in a combination of 
reducing any excess infrastructure consistent with the recommendations 
of the Quadrennial Defense Review, and a commitment to maintain the 
remaining infrastructure using commercial benchmarks and practices.

                             base closures
    9. Senator Thurmond. One of the more significant issues that this 
committee will face this year is legislation authorizing additional 
base closures to more closely match facility capacity with existing 
force structure. As you may know, the mere threat of a base closure 
causes concern and turmoil with the communities that have a long and 
historic association with our military installations.
    Since each of you, if confirmed, will have a significant role in 
any future base closures I would like your views on how we can minimize 
the impact of the base closure process on our communities?
    Mr. Johnson. I believe a successful base closure process involves a 
constant balancing of military needs with those of the civil sector. 
Each community is of course different, which precludes using a single 
approach. Therefore, I believe we must maintain a reasonable level of 
discretion at every stage. Complimenting that must be a firm commitment 
to provide adequate funding to avoid having current year budget 
deficiencies from becoming the driving decision force. I think this 
flexibility, together with the knowledge gained during the recent 
rounds, will go a long way towards minimizing impacts on specific 
communities.

                         utility privatization
    10. Senator Thurmond. The Defense Reform Initiative requires the 
military departments to privatize all utility systems not later than 
September 30, 2003, except those exempt for unique security reasons or 
when privatization is uneconomical. Although the issue of privatization 
is driven by the fact that the department avoids the near term cost of 
modernizing the utility systems, there is concern regarding the long-
term implications. These concerns are cost growth and being held 
hostage to future contract negotiations.
    Based on your knowledge of the utility privatization effort, what 
are your concerns regarding the total reliance on contractors to 
provide utility services?
    Mr. Johnson. I am fully committed to applying better business 
practices in managing the shore infrastructure. By privatizing our 
installation utility system there is the ability to focus our resources 
on core warfighting missions. The private sector is fully capable to 
manage our utility systems and will likely make gains in efficiency. 
There is an extensive selection process and only the most qualified 
municipal utilities and private sector contractors will be invited to 
participate in the sale and utility service contracts. We are very 
early in the utility privatization process. We plan on applying lessons 
learned from our first privatization effort and make changes where 
necessary.

                               priorities
    11. Senator Thurmond. Mr. Johnson, the Navy, as have all the other 
Services, has significant problems with the readiness of its 
facilities. Although funding is certainly an important factor in 
resolving this problem, so is setting the appropriate priorities in 
regard to constructing new facilities versus the repair of existing 
facilities.
    If confirmed as the Assistant Secretary of the Navy for 
Installations and Environment, what will be your priorities to improve 
our facilities?
    Mr. Johnson. If confirmed, I will establish priorities consistent 
with those of the Secretary of Defense and the Secretary of the Navy.

                           contracting reform
    12. Senator Thurmond. In Secretary Rumsfeld's recent testimony 
before the Senate Armed Services Committee, he stressed the need to 
reform the outdated management and acquisition processes in the 
Department of Defense. As a result of that testimony, Senator Allard 
and I contacted the Secretary concerning the innovative contracting 
mechanism being used by the Army for the environmental restoration of 
the Rocky Mountain Arsenal. According to information I have received, 
this innovative approach has produced impressive results. It will 
reportedly reduce program costs by $200 million and the project 
completion time by 3 years, while maintaining planned annual 
expenditures of approximately $70 million with a competent, yet 
reduced, Government core oversight team. I have also been informed that 
the contractor has received numerous accolades due to the meaningful 
small business involvement they have cultivated.
    I believe this is an innovative and dynamic concept that can be 
applied through the Armed Services, especially at the Corps of 
Engineers that will allow each of you to quickly and efficiently adopt 
best commercial practices. In other words, this contracting model may 
yield dramatic and immediate savings for the Department.
    Do you believe that the Department could benefit from contracting 
reform?
    Mr. Johnson. Yes. The Navy has been a leader in the use of 
innovative contracting for the cleanup and transfer of BRAC property. I 
support reforms that improve efficiency and reduce costs.

    13. Senator Thurmond. Will you commit to studying the Rocky 
Mountain Arsenal Program Management Contract in order to evaluate its 
applicability to other projects in your Department?
    Mr. Johnson. Yes, I will consult with my counterpart in the Army 
and determine the suitability for use in the Navy.

                       real property maintenance
    14. Senator Thurmond. Mr. Johnson, as a former commander I know you 
are familiar with the demands on the resources allocated to your 
command. One of the resources that is most frequently diverted from its 
intended purposes is the O&M funding allocated for the repair and 
maintenance of our facilities. As a result of this diversion and 
underfunding, our facilities are in a dismal state of repair. To 
preclude any further diversion there has been support for fencing the 
repair and maintenance accounts.
    What is your position regarding the fencing of the RPM account?
    Mr. Johnson. I believe we need to maintain financial flexibility 
during program execution to handle unexpected events.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
    15. Senator Collins. Mr. Johnson, regionalization/shore 
installation management concerns were brought to my attention in the 
Northeast region back in the March timeframe. I would like to know how 
things are going with this effort. As such, please provide an answer to 
the following:
    What types of change management strategies were employed at 
affected installations to transition the consolidation of base 
operating support functions?
    Mr. Johnson. I'm not familiar with the details of the planning and 
execution of regionalization/shore installation management. If 
confirmed, this will be a matter that requires my review and attention.

    16. Senator Collins. Mr. Johnson, were standard operating 
procedures (SOPs) or concepts of operations (COOs) developed to track 
the consolidation of base operating support functions at each of the 
military installations?
    Mr. Johnson. I'm not familiar with the details of the consolidation 
of base operating support functions. If confirmed, this will be a 
matter that requires my review and attention.

    17. Senator Collins. Mr. Johnson, what metrics are being used to 
ensure that the consolidation of base operating support functions is 
reaching the proposed targets/goals?
    Mr. Johnson. I'm not familiar with the details of the consolidation 
of base operating support functions. If confirmed, this will be a 
matter that requires my review and attention.

    18. Senator Collins. Mr. Johnson, what has the projected and actual 
savings/cost avoidance been with regionalization in each of the naval 
regions?
    Mr. Johnson. I'm not familiar with the details of the planning and 
execution of regionalization/shore installation management. If 
confirmed, this will be a matter that requires my review and attention.

    19. Senator Collins. Mr. Johnson, what have been some of the 
lessons learned with the transition? What have been the actualized 
benefits of the process?
    Mr. Johnson. I'm not familiar with the details of the planning and 
execution of regionalization/shore installation management. If 
confirmed, this will be a matter that requires my review and attention.

    20. Senator Collins. Mr. Johnson, what has the impact been on the 
workforce?
    Mr. Johnson. I'm not familiar with the details of how 
regionalization has impacted the workforce in the Northeast Region. If 
confirmed, this will be a matter that requires my review and attention.

    21. Senator Collins. Mr. Johnson, how has regionalization affected 
the existing labor agreements already negotiated or established at each 
of the military installations?
    Mr. Johnson. I'm not familiar with the details of how 
regionalization affected existing labor agreements in the Northeast 
Region. If confirmed, this will be a matter that requires my review and 
attention.
                                 ______
                                 
    [The nomination reference of H.T. Johnson follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 28, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    H.T. Johnson, of Virginia, to be an Assistant Secretary of the 
Navy, vice Robert B. Pirie, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of H.T. Johnson, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
           Biographical Sketch of Hansford T. (H.T.) Johnson
    H.T. Johnson has over 41 years of service to our Nation in front-
line leadership and planning experience in the military, public, and 
business sectors. He grew up in Aiken, SC, attended Clemson College, 
and was the outstanding graduate in thermodynamics and aeronautics in 
the first class (1959) of the U.S. Air Force Academy. In 1989, he 
became the first graduate of the Air Force Academy to be promoted to 
General (four stars). Continuing his education, H.T. received a 
Master's Degree in Aeronautics from Stanford in 1967 and an MBA from 
Colorado in 1970. He furthered his military education at the U.S. Army 
Command and General Staff College in 1972, the National War College in 
1976, and the Advance Management Program at Dartmouth in 1980. He 
qualified as a ``Professional Engineer'' in Colorado and as a 
``registered principal'' with the National Association of Security 
Dealers.
    He was a forward air controller in Vietnam and flew 423 combat 
missions. After the combat tour, he served as an Assistant Professor of 
Aeronautics at the Air Force Academy. After serving in Air Force Plans 
and attending the National War College, H.T. joined the Strategic Air 
Command and served as a Wing Commander and in SAC Plans. During a 
period of defense downsizing (1982-1985), he led the team that 
successfully rebalanced the Air Force programs in the $100 billion 
annual Air Force Budget. H.T. led Strategic Air Command operations in 
1985 and directed the refueling and strategic reconnaissance forces 
during Coronado Canyon, the bombing of Libya. He then became the Vice 
Commander in Chief of the Pacific Air Force. In late 1987, he became 
the Deputy Commander in Chief of the Central Command during Earnest 
Will, the U.S. reflagging of Kuwaiti oil tankers and escort operations 
in the Persian Gulf. He was intimately involved in all of the conflicts 
with Iran during the escort operations. In 1989, H.T. served as Admiral 
Bill Crowe's Director of the Joint Staff, Joint Chiefs of Staff.
    As Commander in Chief of the U.S. Transportation and the Military 
Airlift Commands, H.T. worked directly for Secretary of Defense Dick 
Cheney; Chairman of the Joint Chiefs Gen. Colin Powell; and Air Force 
Chief of Staff Gen. Larry Welch in leading all transportation 
components of the Army, Navy, and Air Force (which he also commanded). 
His Air Force command provided all airlift and special operations 
forces for the extremely effective Just Cause invasion of Panama. He 
very successfully implemented Total Quality Management in the Military 
Airlift Command. All military and commercial aspects of the Operation 
Desert Shield/Storm movement of troops, equipment, and supplies to and 
from the Persian Gulf were led by him and his commands. This was the 
most concentrated movement in American military history--moving the 
equivalent of Richmond, Virginia across the world in 4 months.
    After retirement from the Air Force, H.T. joined USAA Capital 
Corporation, part of one of the largest and most successful financial 
services organizations in America. He was responsible for providing 
non-insurance services to USAA members through the USAA Federal Savings 
bank (selected as the Best Bank in America by Money Magazine), the USAA 
Investment Management Company, the USAA Real Estate Company, and USAA 
Buying Service. These companies managed $13 billion in USAA insurance 
portfolios, over $16 billion in mutual funds, $10 billion bank, and $1 
billion in real estate holdings.
    While at USAA, President Bush and Secretary of Defense Dick Cheney 
appointed him to the 1993 Base Realignment and Closure Commission. When 
the 1995 Commission closed Kelly AFB, H.T. was appointed to lead the 
Greater Kelly Development Corporation (GKDC). The GKDC was charged with 
transforming the closing $7.5 billion Kelly Air Force Base with a 
workforce of 19,000 into a thriving industrial park employing in excess 
of 21,000 workers.
    He served as an Executive Vice President and Chief Operating 
Officer of the Credit Union National Association (CUNA) in Madison, 
Wisconsin. Until reaching 65, H.T. served as the President and CEO of 
EG&G Technical Service and later of EG&G when purchased by The Carlyle 
Group. EG&G provides the full range of management, scientific, 
technical, operational, and support services to both government and 
commercial customers. H.T. is active in the Air Force Association's 
Aerospace Education Foundation, the National War College Alumni 
Association Board, Falcons Landing Air Force Retired Officers' 
Community Board, and the National Presbyterian Church.
    H.T. and his wife of 41 years, Linda, live in McLean, Virginia. 
They have a son, a daughter, and six grandchildren.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by H.T. Johnson 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Hansford Tillman Johnson.

    2. Position to which nominated:
    Assistant Secretary of the Navy (Installations and Environment).

    3. Date of nomination:
    June 28, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 3, 1936; Aiken, SC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Ann Whittle.

    7. Names and ages of children:
    Richard Tillman Johnson, 41; Elizabeth Ann Johnson McCombs, 39; 
David Michael Johnson, Deceased, 1998.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1947-1953--Aiken High School.
    1953-1955--Clemson College.
    1955-1959--U.S. Air Force Academy, BS--Engineering Science.
    1965-1966--Stanford University, MS--Aeronautics.
    1968-1970--University of Colorado, MBA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Associate, Burdeshaw Associates, Ltd., Bethesda, MD, 2001 to 
Present.
    President & CEO, EG&G Technical Services, Gaithersburg, MD, 1998-
2001.
    Executive VP and Chief Operating Officer, Credit Union National 
Association, Madison, WI, 1997-1998.
    Chair, President & CEO, Greater Kelly Development Corp, San 
Antonio, TX, 1996-1997.
    Vice Chair of Board and President & CEO of USAA CAPCO, USAA, San 
Antonio, TX 1992-1996.
    Commissioner, Base Realignment and Closure Commission, Washington, 
DC, 1993.
    Commander in Chief, United States Transportation Command and 
Military Airlift Command, 1989-1992.
    Director, Joint Staff (JCS), Washington, DC, 1988-1989.
    Deputy Commander in Chief, United States Central Command, Tampa, 
FL, 1987-1989.
    Vice Commander in Chief, Pacific Air Force, Hickam Air Force Base, 
HI, 1986-1987.
    Deputy Chief of Staff for Operations, Strategic Air Command, Omaha, 
NE, 1985-1986.
    Director of Programs and Chair of Air Staff Board, Headquarters, 
U.S. Air Force, Washington, DC, 1983-1985.
    Deputy Director of Programs and Chair of the Program Review 
Committee, Headquarter U.S. Air Force, Washington, DC, 1982-1983.
    Other Air Force Positions, 1959-1982.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Associate, Burdeshaw Associates, Ltd., Bethesda, MD.
    Director, Aerospace Education Foundation, Arlington, VA.
    Vice President, National War College Alumni Association, 
Washington, DC.
    Chairman, Air Force Retired Officers Community (Falcon's Landing), 
Sterling, VA.
    Trustee, Johnson Family Trust (family/personal trust).
    Trustee, Johnson Charitable Remainder Trust (family/personal 
trust).
    General Partner, John Whit Limited Partnership (family/personal 
partnership).
    President, Tillin Charitable Foundation (family/personal 
foundation).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    National March of Dimes Board, 1994-1997.
    Alamo Bowl (Post Season football), 1995-1997, Chair in 1995.
    U.S. Air Force Academy Association of Graduates, 1959 to Present.
    Air Force Association, 1959 to Present.
    Air Force Academy Sabre Society, 1995 to Present.
    Order of Daedalians, 1970 to Present.
    National Defense Transportation Association, 1989 to Present.
    The Marine Society of the City of New York, 1990 to Present.
    Airlift/Tanker Association, 1990 to Present.
    Stanford Alumni Association, 1967 to Present.
    Alexis De Tocqueville Institution, 1993-1997.
    Free Trade Alliance of San Antonio, 1993-1997.
    Santa Rosa Children's Hospital, San Antonio, TX, 1993-1996.
    Cancer Therapy and Research Center, San Antonio, TX, 1993-1997.
    St. Mary's University, Business School Advisory Council, San 
Antonio, TX, 1993-1995.
    Texas Research and Technology Foundation, San Antonio, TX, 1993-
1997.
    University of Texas at San Antonio Development Board, 1994-1996.
    Torch Club, San Antonio, TX, 1993-1997.
    American Institute of Aeronautics and Asgronautics, 1968-1992.
    Dominion Country Club, San Antonio, TX, 1992-1999.
    Falcon Foundation, U.S. Air Force Academy, 1992-1998.
    Club Giraud, San Antonio, TX, 1992-1996.
    The Tower Club, Tyson's Corner, VA, 1999-2001.
    Falcons Landing, Air Force Retired Officer Community Board, 2001 to 
Present.
    Aerospace Education Foundation, 1999 to Present (If confirmed, I 
will resign.)
    University Methodist Church, San Antonio, TX, 1992-1997.
    National Presbyterian Church, 2000 to Present.
    World Affairs Council of Washington, DC, 2001 to Present.
    Order of the Caribou, 2000 to Present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

                                             POLITICAL CONTRIBUTION
                                               (since March 1996)
----------------------------------------------------------------------------------------------------------------
                   Date                      Amount              Recipient                     Comment
----------------------------------------------------------------------------------------------------------------
3/28/96..................................      $1,000  Dole for President..........
7/15/96..................................        $250  Texans for Henry Bonilla....
10/21/96.................................        $250  Friends of John Shields.....
3/25/97..................................        $500  Friends of Chris Dodd.......  Luncheon in San Antonio
9/17/98..................................      $1,000  Alan Mollohan...............  On behalf of EG&G
2/24/99..................................      $1,000  Kennedy for Senate..........  On behalf of EG&G, Home
                                                                                      office in Wellesley, MA
3/13/99..................................        $500  Charlie Gonzalez............  On behalf of EG&G
3/13/99..................................        $500  Texans for Henry Bonilla....
5/9/99...................................        $100  Bush for President..........
2/10/00..................................        $250  McCain 2000.................  On behalf of EG&G
3/2/00...................................        $250  George Allen ...............
2/22/00..................................      $1,000  Gore for President..........  On behalf of EG&G, Energy
                                                                                      sector group
3/30/99                                          $500  Thornberry for Congress.....  On behalf of EG&G
4/1/00                                           $500  Bush for President..........
4/12/00                                        $5,000  EG&G PAC....................  Initial contribution to PAC
6/27/00                                          $200  RNC Victory 2000............
8/8/00                                           $100  Lazio 2000..................
9/7/00                                           $500  RNC Victory 2000............
9/11/00                                          $200  Alan Mollohan...............  On behalf of EG&G
3/11/01                                          $500  RNC.........................
5/31/01                                          $100  Texans for Henry Bonilla....
----------------------------------------------------------------------------------------------------------------


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Outstanding Graduate in Aeronautics and Thermodynamics at U.S. Air 
Force Academy.
    Defense Distinguished Service Medal with two oak leaf clusters.
    Distinguished Service medal.
    Silver Star.
    Legion of Merit with two oak leaf clusters.
    Distinguished Flying Cross with two oak leaf clusters.
    Defense Meritorious Service Medal.
    Air Medal with 22 oak leaf clusters.
    Presidential Unit Citation.
    Navy-Marine Corps Presidential Unit Citation.
    Joint Meritorious Unit Award.
    Air Force Outstanding Unit Award with ``V'' device and three oak 
leaf clusters.
    Air Force Organizational Excellence Award.
    Combat Readiness Medal.
    National Defense Service Medal.
    Armed Forces Expeditionary Medal with service star.
    Vietnam Service Medal with three service stars.
    Humanitarian Service Medal.
    Republic of Vietnam Gallantry Cross with Palm.
    Republic of Vietnam Armed Forces Honor Medal, First Class with 
service star.
    Republic of Vietnam Campaign Medal.
    Command Pilot.
    Navigator.
    Parachutist.
    Qualified as a Professional Engineer.
    Qualifed as a Registered NASD Securities Broker.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Series of articles written while Commander in Chief of U.S. 
Transportation and Military Airlift Commands in associated weekly 
newspapers, 1989-1992.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    No relevant speeches.
    Many speeches given while in the Air Force.
    Speaker at 1999 Wright Memorial Dinner.
    Speaker at Air Mobility training in 2001.
    Speaker on Military Role in Diplomacy at Sheppard Center Elder 
Hostel in 2001.
    Lecturer on cruises to Persian Gulf (1997 & 1998) and Vietnam 
(2000).

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Hansford T. Johnson.
    This 29th day of June, 2001.

    [The nomination of H.T. Johnson was reported to the Senate 
by Chairman Levin on August 2, 2001, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on August 3, 2001.]
                              ----------                              

    [Prepared questions submitted to Nelson F. Gibbs by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   July 25, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Nelson F. Gibbs. 
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    What is your view of the extent to which these defense reforms have 
been implemented?
    What do you consider to be the most important aspects of these 
defense reforms?
    Answer. I fully support Goldwater-Nichols Act and agree with its 
goal. The Act has improved the organization of the Department of 
Defense and provided focus on the capabilities of the military to 
conduct its operations. I believe the act has strengthened the advice 
provided the Secretary of Defense and has increased the ability of the 
military departments to integrate their capabilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am not aware of specific proposals that are contemplated. 
If enacted, I would fully support any changes that resulted from the 
legislative process.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force (Installations and 
Environment)?
    Answer. The duties and functions are varied and cross a large 
spectrum of the Air Force mission. Central elements include providing 
quality housing to Air Force members and their families, a critical 
part of which is privatization. Privatization also extends to strategic 
outsourcing and utilities infrastructure. Environment, safety, and 
occupational health as well as airspace and range issues are also a 
function I will assume if confirmed. Base closure and realignment 
matters fall within the assistant secretary for installations and 
environment. If confirmed, I will also exercise oversight of the Air 
Force logistics system.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my many years at the senior level with Deloitte & 
Touche and my experience as the Corporate Controller for Northrop 
Grumman Corporation will translate well into performing the duties of 
Assistant Secretary, if confirmed. My professional and educational 
background in civil engineering, financial services, and accounting 
coupled with my corporate experience at Northrop Grumman will allow me 
to quickly move into the role of Assistant Secretary, if confirmed.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force (Installations and Environment)?
    Answer. No. I am confident in my ability to do the job now.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. I would expect Secretary Roche to prescribe the duties and 
functions commensurate with the position and consistent with those 
specified in law.
    Question. In carrying out your duties, how will you work with the 
Secretary of the Air Force, the Under Secretary of the Air Force, and 
the Deputy Under Secretary of Defense (Installations and Environment)?
    Answer. As Secretary Roche stated in his response to questions, as 
part of his leadership team, I will, if confirmed, assist the Under 
Secretary of the Air Force, the General Counsel, the other Assistant 
Secretaries of the Air Force, along with the Air Force Chief of Staff 
in forming a close relationship with the Deputy Under Secretary of 
Defense (Installations & Environment). I will make teamwork and 
information sharing a top personal priority.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Air Force (Installations and 
Environment)?
    Answer. Enhancing our ability to carry out the Air Force mission in 
the most cost-effective method will always be a priority. Ensuring 
access to our training ranges and airspace is critical to preparing the 
warfighters for the ultimate tasking. Improving our family housing and 
the utility infrastructure and overseeing an immense logistics system 
will occupy a great deal of my time as well, if confirmed.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will establish broad parameters in all 
matters within my jurisdiction in order to allow competent people to 
carry out their tasks with efficiency and within the guidelines of the 
Air Force mission. These parameters will include improvements in 
financial analysis; leveraging the funds we do have available and 
working closely with others both within and out of government who 
influence Air Force installations, the environment, and our access to 
airspace and ranges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Air 
Force (Installations and Environment)?
    Answer. The heart of any organization is its people and I want to 
ensure that I have the right mix of civilian and military personnel 
with the right skill sets to perform the tasks within the Assistant 
Secretary's office. Many of the actions within my office would require 
the expenditure of large sums of money and are mandated by both 
Congress and Department of Defense. These actions must be executed with 
precision. I will do so if confirmed.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work hard to establish a personal and 
professional relationship with both members of Congress and their staff 
and the DOD officials directly responsible for matters within the 
jurisdiction of my office. I will work closely with the Secretary and 
Under Secretary of the Air Force to enhance the skill levels of all our 
civilian and military personnel. Timeliness will be critical to all 
actions within my purview.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Assistant Secretary of 
the Air Force (Installations and Environment)?
    Answer. Broad parameters will include innovative thinking; cost 
effectiveness, relationship building; treating people right; and of 
course doing everything possible to assist the Air Force warfighting 
mission and our people and families who carry out that mission.
                         housing privatization
    Question. Congress has repeatedly expressed its support for 
improving military family housing. In recent years the Department of 
Defense and Congress have taken significant steps to improve family 
housing. However, it will take many more years and a significant amount 
of funding to meet the Department's housing needs. An alternative 
option that was created to speed the improvement of military family 
housing and relieve base commanders of the burden of managing their 
family housing is the housing privatization program. If confirmed for 
the position of Assistant Secretary of the Air Force (Installations and 
Environment) you will have a key role in any decisions regarding 
military family housing.
    What are your views regarding the privatization of family housing?
    What is your view of the structure and general goals of the Air 
Force's current housing privatization program? Do you think the program 
should be continued, and if so do you believe the program should be 
modified in any way?
    Why do you believe the pace of Air Force housing privatization has 
been so slow?
    The Army has contracted for a major housing privatization effort at 
Fort Hood, Texas using a request for qualifications (RFQ) process 
instead of the more traditional request for proposals (RFP) process.
    What are your views on the relative merits of these contracting 
approaches?
    The Department of Defense has established 2010 as a goal to improve 
all of its military family housing.
    Do you believe the Department of the Air Force can achieve this 
goal?
    Answer. The Air Force housing initiatives are critical to the men, 
women, and families of the Air Force. If confirmed, I will review this 
matter in depth to ensure our military members and their families are 
provided quality housing so that they may better go about conducting 
the Air Force mission.
                          competitive sourcing
    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform activities that are 
commercial in nature, including many functions relating to running and 
maintaining our military installations.
    What approach would you recommend to balance the need to maintain 
necessary decision-making functions and technical capabilities in the 
government's civilian workforce, including the knowledge necessary to 
be a ``smart buyer,'' and skills such as civil engineering within the 
military, with the savings that may be available from outsourcing?
    Answer. If confirmed, I will continue to work with my staff and 
welcome the opportunity to work with the committee to evaluate the 
effectiveness of outsourcing.
    Question. Do you support the principle of public-private 
competition as the preferred means to make the ``sourcing'' decision 
for such functions?
    Answer. If confirmed, I will work the issue of sourcing decisions 
with the Air Force and, if requested, with this committee.
    Question. Do you believe that public-private competition results in 
significant savings to the Department of Defense regardless of which 
side wins the competition?
    Answer. I will evaluate the issue of public-private competition and 
whether it does generate greater savings. I will be most happy, if 
confirmed, to share my thoughts with this committee at a later time.
    Question. OMB Circular A-76, which establishes the guidelines for 
outsourcing most government functions, is slated for scrutiny by a 
congressionally-mandated panel of government and private experts in 
this area. The panel, chaired by the Comptroller General, is scheduled 
to report to Congress with specific policy and legislative reforms and 
recommendations for changing the way the government conducts 
outsourcing decisions and implements them.
    What is your view of the current A-76 process?
    Answer. I believe that the on-going Commercial Activities Panel, 
directed by Section 832 of the 2001 NDAA, is a good venue in which to 
address issues associated with the A-76 process and if requested, I 
will provide any necessary input to the panel.
    Question. Are there other effective alternatives to achieve the 
benefits of public-private competition?
    Answer. If confirmed, I will evaluate all effective alternatives to 
public-private competition and if requested, communicate my views to 
this committee.
                             base closures
    Question. The President's February 2001 budget blueprint document 
states that ``with 23 percent in estimated excess infrastructure, it is 
clear that new rounds of base closures will be necessary to shape the 
military more efficiently''.
    Do you believe that we need more base closures?
    Answer. If confirmed, I will support the Secretary of Defense's 
position on issues associated with the evaluation of the efficient use 
of facilities.
    Question. Do you believe the Air Force has excess infrastructure 
that uses resources that could be applied to higher priorities within 
the Department of the Air Force?
    Answer. Recent testimony of the Secretary of Defense, as well as 
the service secretaries and the service chiefs referred to excess 
capacity. If confirmed, I will support the Secretary in his decisions 
on this matter.
    Question. Do you believe the process established by the Defense 
Base Closure and Realignment Act of 1990 is a fair and effective way to 
reduce excess military infrastructure and return the property to local 
authorities?
    Answer. I am a firm believer in the legislative process and will 
support any decision that process yields.
    Question. In your view, would changing the base closure process to 
exempt some bases from the independent commission's review make the 
process more or less open, fair, and stressful to communities with 
military installations?
    Answer. If confirmed, I will carefully consider any proposed 
changes to improve the process. In general, I believe that any proposed 
changes must ensure that the process remains open, objective and fair 
to all communities.
                       real property maintenance
    Question. The military departments have consistently struggled to 
maintain their base infrastructure. The backlog of real property 
maintenance has remained high whether budgets were increasing or 
decreasing, and the military is far behind industry standards for 
maintaining and modernizing its facilities.
    Are there any new approaches to this issue that you believe could 
help the Air Force move toward a solution of this perennial problem?
    Answer. If confirmed, I will take a fresh look at approaches to 
this issue and if requested, share my views with this committee.
                          environmental issues
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include population growth near military 
installations, environmental constraints on military training ranges, 
airspace restrictions to accommodate civilian airlines, and the 
conflicts with civilian users over the use of radio frequency spectrum.
    In your opinion, how serious are these problems for the Department 
of the Air Force?
    If confirmed, what role do you expect to play in addressing these 
challenges and what actions would you propose to take to address them?
    Answer. If confirmed, I will take a key Air Force role in 
addressing encroachment associated with military installations, ranges, 
and airspace. These are readiness issues and I clearly understand their 
importance.
    Question. The Department of Defense makes it a practice to request 
funding only for those environmental compliance areas that are already 
out of compliance and subject to an enforcement action, and those that 
will be out of compliance before the next budget cycle.
    Do you believe that continuing funding for this type of 
environmental cleanup is critical to maintaining a positive 
relationship with local regulatory authorities and the communities 
around our military bases?
    Answer. I believe that maintaining a positive relationship with the 
regulatory authorities and local communities is important to our entire 
environmental cleanup program.
    Question. Do you believe that the Department of Defense should be 
exempt from the application of the environmental laws?
    Answer. No.
    Question. Do you support the basic principle of the Federal 
Facilities Act and other laws that Federal facilities, including DOD 
facilities, should be subject to the same standards as comparably 
situated civilian facilities?
    Answer. Yes.
    Question. The Department of Defense faces a bill for the clean-up 
of unexploded ordnance (UXO) that is at least in the tens of billions 
of dollars, and could well be in the hundreds of billions of dollars. 
At current funding levels, it has been estimated that it would take the 
military services several thousand years to remediate UXO problems on a 
DOD-wide basis.
    What do you believe would be an acceptable time period for cleaning 
up unexploded ordnance problems throughout the Department of Defense?
    Answer. If confirmed, I will work with the Air Force and with my 
service counterparts and DOD to establish a methodology for solving 
this most complex problem.
    Question. Do you believe that increased investment in UXO 
remediation technologies would be likely to produce more effective and 
efficient remediation processes and substantially reduce the 
Department's long-term clean-up liability (and the time required to 
complete such clean-up)?
    Answer. If confirmed, I will review this long-term liability issue 
both with the Air Force and with my service counterparts and DOD.
                           energy efficiency
    Question. Executive Order 13123 lays out a number of specific steps 
that agencies should take to promote energy conservation. These include 
the use of energy savings performance contracts, utility energy 
efficiency contracts, and other contracts designed to achieve energy 
conservation; conducting energy efficiency audits for approximately 10 
percent of an agency's facilities each year; and exploring 
opportunities for energy efficiency in industrial facilities for steam 
systems, boiler operation, air compressor systems, industrial 
processes, and fuel switching.
    Do you support the use of these energy conservation approaches?
    Answer. I support energy conservation, and if confirmed, I will 
review the entire Air Force effort in this area.
    Question. Are there other steps that you would take, if confirmed, 
to promote energy conservation by the Department of the Air Force?
    Answer. I will address the issue in detail if confirmed.
    Question. Do you believe that the energy conservation goals 
established in the Executive Order are achievable?
    Answer. If confirmed, I will attempt to meet all goals established 
by Presidential Executive Order.
          integration of installations with local communities
    Question. The Department of Defense is in the midst of an effort to 
increase the basic allowance for housing to eliminate out-of-pocket 
housing costs for military families who choose to live off base. This 
policy is intended to encourage more military families to live off base 
and reduce the demand for government housing. In recent years, 
outsourcing of base operations functions on military installations has 
increased substantially. Secretary Rumsfeld has proposed examination of 
additional contracting out in certain areas, including the operation of 
commissaries. All of these policies tend to increase the integration of 
the military into the local community and increase the non-military 
population on our bases.
    At the same time, force protection concerns are leading the 
military services to take steps to close or restrict access to military 
installations and to build force protection measures into the 
construction of schools and other non-military facilities on those 
installations.
    What do you believe is the appropriate level of integration, or 
separation, between military installations and the surrounding local 
communities?
    Answer. If confirmed, I will address this very complex issue in 
detail.
                            davis-bacon act
    Question. 40 U.S.C. Sec. 276a, commonly known as Davis-Bacon, 
requires that for every contract in excess of $2,000 involving 
construction, alteration, and/or repair of public buildings or public 
works, the prevailing wage in that state shall be paid. When the 
contract cost-floor was set in the 1930s, $2,000 was a substantial sum 
of money, however, inflation during the intervening years has eroded 
the value of the dollar to the point were there is virtually no project 
that is not covered by Davis Bacon.
    If confirmed, would you support raising the contract threshold to a 
more current standard before Davis-Bacon can be invoked?
    In your personal opinion, what would be an appropriate contract 
cost before Davis-Bacon should apply?
    Answer. If confirmed, I will review the issues associated with the 
Davis-Bacon Act and consult with senior Air Force leadership for their 
views.
                        installation management
    Question. One of the obvious handicaps to the implementation of the 
Family Housing Privatization initiative is the lack of specialists in 
real estate and financial management throughout the Department of 
Defense. A similar shortfall is said to exist in the area of business 
managers and installation managers.
    If the Air Force is experiencing similar shortfalls, should these 
positions be filled with contract or civil service personnel? Please 
explain.
    As the Air Force enters a new era of defense reform and business 
practices, does it have a program to ensure it has a cadre of real 
estate and business managers?
    Answer. If confirmed, I will address the issue of real estate and 
financial management specialists and illicit the views of senior 
leaders in the Air Force.
                          airspace management
    Question. Commercial air traffic is expected to increase 6 percent 
annually, and military airspace use will also increase with the next 
generation of high performance weapon systems. As a result of the 
pressures associated with commercial air traffic congestion, noise, and 
other environmental concerns, the acquisition and use of special use 
airspace has evolved into a challenging endeavor for all of the 
military departments.
    If confirmed, how would you view your role in addressing these 
issues?
    Answer. I view my role as working closely with senior Air Force 
civilian and military leaders to address this critical readiness issue.
       unexploded ordnance cleanup and technological development
    Question. Unexploded ordnance (UXO) and other by-products of test 
and training activities can cause environmental contamination and 
safety concerns that may trigger restrictions on military testing and 
training. The technology presently available to address these issues is 
labor intensive and not cost effective, but technological advancements 
have shown promise. The Air Force's budget request for fiscal year 2002 
does not contain any funding to support such critical environmental 
technology investments.
    If you are confirmed, how would you propose to address this issue?
    Answer. If confirmed, I will address this issue within the Air 
Force, with my service counterparts and DOD representatives.
                       environmental encroachment
    Question. Some of the Service Chiefs have asserted that they spend 
more money each year complying with environmental regulations than they 
spend on training. In visits to military installations, committee 
members have observed first hand the barriers to training caused by 
compliance with environmental regulations.
    If confirmed, what steps would you take to reduce the cost to the 
Department of environmental compliance?
    If confirmed, how would you propose to facilitate the development 
and implementation of a comprehensive strategy to address readiness 
concerns related to these encroachment issues?
    Answer. Environmental costs, readiness, and encroachment are issues 
I will address, if confirmed.
                         overseas installations
    Question. The Air Force maintains a network of bases to support our 
forward deployed forces. In testimony before the Senate Armed Services 
Committee, both the Supreme Allied Commander, Europe, and the 
Commander, United States Forces, Korea, stated that the installations 
in their commands are in serious need of repair. The implication of 
these statements is that overseas installations are not faring well in 
the funding allocation process.
    In your view, what share of resource allocation should go to our 
overseas bases?
    Answer. If confirmed, I will study resource allocations for all 
installations in the Air Force and determine if special circumstances 
are warranted.
                   67-year facility replacement goal
    Question. One of Secretary Rumsfeld's more significant goals is to 
fund facility replacement on a 67-year standard, rather than the almost 
200-year cycle on which the Department is currently operating. Although 
this standard is still short of the industry standard of 57 years, it 
will significantly increase the readiness of our military 
installations.
    In your view, is it realistic to hold the Air Force to such a 
standard when there are fluctuating budget demands and priorities?
    Other than increased funding for military construction and repair 
and maintenance, what other tools would you suggest the Department 
employ to achieve the 67-year replacement goal?
    Answer. If confirmed, I will review all issues associated with 
infrastructure replacement from both an installation and cost 
standpoint. Installation upgrades are clearly a part of both readiness 
and quality of life.
                    modernization/new mission costs
    Question. All components, including both active and Reserve Forces, 
face the challenge of providing facilities required for a new weapon 
system or the assignment of a new mission. This is especially 
challenging to the Reserve components, which have been assigned new 
missions or weapons systems and then expected to fund the new 
facilities from their limited military construction funds.
    Do you believe the funding for new equipment support facilities 
should be programmed as part of any given program's acquisition cost?
    What are your views on the assignment of new missions to the 
Reserve components without specifically programming the funds in the 
military construction program to support those missions?
    Answer. New weapon systems and new missions and their impact on 
infrastructure for the active, Reserve and Guard forces will be an 
agenda item should I be confirmed.
                       brac environmental cleanup
    Question. There are funding shortfalls for Base Realignment and 
Closure (BRAC) cleanup in the fiscal year 2002 budget, including about 
$92 million in the Navy account and $55 million in the Air Force 
account. Such funding shortfalls adversely effect cleanup milestones, 
undercut the timeliness and value of property transfers, further harm 
communities already impacted by base closure, and threaten the overall 
credibility of the BRAC process.
    If confirmed, how would you propose to address the effect of the 
fiscal year 2002 shortfalls in the Air Force BRAC account?
    What role do you expect to play in addressing the need to 
renegotiate cleanup milestones and to address concerns regarding 
delayed property transfers?
    Answer. BRAC environmental cleanup shortfalls would be an issue 
within my authority and if confirmed, I will attempt to resolve this 
issue to the satisfaction of the Air Force and the local communities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force (Installations and Environment)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                         environmental cleanup
    1. Senator Warner. Mr. Gibbs, in response to advance questions 
regarding funding shortfalls for Air Force BRAC cleanup you indicated 
that, subject to confirmation, you would attempt to resolve this issue 
to the satisfaction of the Air Force and the local communities.
    If confirmed, what role would you expect to play in renegotiating 
cleanup schedules and addressing concerns related to delayed property 
transfers?
    Mr. Gibbs. The Air Force has a strong record of supporting the 
cleanup requirements at BRAC installations that are needed to support 
communities. I would work with the Department of Defense and Congress 
to fully fund the cleanup requirements needed to facilitate property 
transfer.

                       family housing improvement
    2. Senator Warner. The Department of Defense has established 2010 
as a goal to bring up to standard the family housing for our military 
families. The vast majority of the existing family housing is more than 
30 years old and has had very limited renovation due to fiscal 
constraints. Although the Department has made progress toward achieving 
the 2010 goal, the bulk of the improvement effort will have to be 
funded and enacted under your leadership, assuming you are confirmed.
    Based on what you know of the department's ongoing efforts to 
improve military family housing, do you believe the 2010 goal is 
achievable, and are you committed to that goal?
    Mr. Gibbs. I consider the housing needs of our Air Force men and 
women and their families area top priority and I am fully committed to 
achieving the 2010 goal.

                           facility conditions
    3. Senator Warner. The condition of our military facilities is 
deplorable. After years of insufficient resources for the construction 
of new facilities or the maintenance of those in existence, many of 
those buildings, in which our military personnel live and work, have 
deteriorated to an unacceptable level.
    What actions will you pursue to correct this problem?
    Mr. Gibbs. I agree the rundown state of our bases is caused by 
years of reduced facility funding that has lead to a steady 
deterioration in Air Force infrastructure. Previous underfunding of 
military construction and operation and maintenance required the Air 
Force to develop ``work-arounds,'' which impacted combat capability, 
operational efficiency, and quality of workplace environment. Although 
we continue to operate and support the world's premier aerospace force, 
we cannot correct overnight the negative impact reduced funding has had 
on the infrastructure. I agree with another round of base closures and 
realignments to balance Air Force manpower and force structure with 
infrastructure. Done right, the Efficient Facilities Initiative (EFI) 
provides a vehicle for properly sizing our infrastructure to our force 
structure and allows us to reallocate critical funds to force 
modernization, readiness and quality of life issues. We will continue 
the use of public and private resources to accelerate the rate at which 
we revitalize our inadequate housing inventory to meet DOD and Air 
Force goals to fix all inadequate housing by 2010.

                              encroachment
    4. Senator Warner. Some of the most significant issues that will 
impact the readiness of the Armed Forces as we enter the 21st century 
could be categorized as outside encroachment upon military resources. 
This encroachment includes environmental constraints on military 
training ranges, local community efforts to obtain military property, 
airspace. restrictions to accommodate civilian airlines, and many 
others. Unless these issues are effectively addressed, our military 
forces will find it increasingly difficult to train and operate at home 
and abroad.
    What actions will you propose to ensure that encroachment does not 
prevent the Armed Forces from effectively training and operating both 
at home and abroad?
    Mr. Gibbs. Encroachment at our installations, ranges and airspace 
is a serious and growing challenge to the Air Force. Encroachment 
issues are complex and involve multiple Federal, State, tribal, and 
local agencies, as well as Congress and the public. We continue to work 
with state regulators and local communities to ensure we have the 
flexibility to base aircraft at installations that have access to 
ranges and airspace. We must monitor activities outside our fencelines 
and engage with local communities including at our overseas locations. 
The Air Force has found that where we have good relationships with 
regulators, we have been able to develop cooperative strategies that 
allow the AF to accomplish its mission while at the same time providing 
the necessary stewardship of our natural and host county natural 
resources.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                     military family housing stock
    5. Senator Thurmond. The Department of Defense has established 2010 
as a goal to bring up to standard the family housing for our military 
families. The vast majority of the existing family housing stock is 
more than 30 years old and has had very limited renovation due to 
fiscal constraints. Although the Department has made progress toward 
achieving the 2010 goal, the bulk of the improvement effort will have 
to be funded and enacted under your leadership, once confirmed.
    Based on what you know of the department's on going efforts to 
improve the military family housing stock, do you believe the 2010 goal 
is achievable and are you committed to that effort?
    Mr. Gibbs. I give great weight to the housing needs of the Air 
Force men and women and therefore am fully committed to achieving the 
2010 goal.

                         facilities management
    6. Senator Thurmond. The Department of Defense has a dismal record 
in funding the repair and replacement of its infrastructure. Under the 
historic funding profile, it would take more than 200 years to replace 
the existing infrastructure. The prevailing industry standard is to 
replace its facilities on a 57-year cycle. Secretary Rumsfeld, 
concurrent with his budget submission, has established a 67-year 
replacement standard for DOD facilities and has established a funding 
profile to support this standard. Although funding is key, proper 
management of the assets is critical if the Department is to achieve 
this goal. Based on your knowledge of how the Department currently 
manages its facilities, what management improvements would you 
recommend?
    Mr. Gibbs. The Air Force's challenge remains unchanged--balancing 
shortfalls among our priorities of people, readiness, modernization, 
and infrastructure. Increases in defense spending provided last year 
were helpful in meeting most pressing needs--however, those increases 
do not meet all of the needs. As the Air Force has sought to accomplish 
its various goals, it made a conscious decision to fund people, 
readiness and modernization at the expense of the infrastructure 
programs.
    I see few management actions not already implemented that would 
significantly improve management of facility assets. However, there is 
one management action the Air Force is currently working on that has 
tremendous asset management potential. The Air Force's Next Generation 
Installations (NGI) approach could be the primary asset management tool 
to assist the Air Force in meeting the Secretary's 67-year replacement 
standard for facilities. NGI is a system that provides information 
regarding Air Force installations, missions, and quality of life. NGI 
can: expedite and facilitate fact-based decisions by making data 
visible and accessible; identify needed data that is not available; and 
most importantly, enable actions.

                             base closures
    7. Senator Thurmond. One of the more significant issues that this 
committee will face this year is legislation authorizing additional 
base closures to more closely match facility capacity with existing 
force structure. As you may know, the mere threat of a base closure 
causes concern and turmoil within the communities that have a long and 
historic association with our military installations.
    Since each of you, if confirmed, will have a significant role in 
any future base closures I would like your views on how we can minimize 
the impact of the base closure process on our communities?
    Mr. Gibbs. Once recommended closures are approved, we will work 
with the communities as we have in the past to minimize the impacts. 
The proposed Efficient Facilities Initiative (EFI) incorporates the 
lessons we learned from the past four rounds of closures and includes 
such things as no cost economic development conveyances and transfer-
leaseback authority. I believe the team the Air Force has in place is 
extremely competent and familiar with all the concerns that will be 
voiced by communities. I will ensure our Base Conversion Agency 
responds equally aggressively to any new base closure and realignment 
round.

                      utility privatization effort
    8. Senator Thurmond. The Defense Reform Initiative requires the 
military departments to privatize all utility systems not later than 
September 30, 2003, except those exempt for unique security reasons or 
when privatization is uneconomical. Although the issue of privatization 
is driven by the fact that the department avoids the near term cost of 
modernizing the utility systems, there is concern regarding the long-
term implications. These concerns are cost growth and being held 
hostage to future contract negotiations.
    Based on your knowledge of the utility privatization effort, what 
are your concerns regarding the total reliance on contractors to 
provide utility services?
    Mr. Gibbs. The Air Force is taking a measured approach to utility 
privatization. They have come to realize that in many cases utility 
privatization does not make good business sense and has limited private 
sector interest. Due to readiness constraints and economics, not all 
utility systems will be eligible for this program and of those 
eligible, all will necessarily be privatized.
    I do have a few specific concerns regarding the total reliance on 
contractors to provide utility services. First, total reliance on 
contractors could adversely affect the Air Force's ability to beddown 
expeditionary forces. The Air Force's internal ability to beddown 
forces in bare-base environments, especially in the area of utility 
services i.e. water, sewerage, electrical and HVAC could be lost. 
Contracting out utility service results in the loss of ``blue-suiters'' 
capable to accomplish expedient utility service in a contingency 
environment.
    Another concern is the utility industry voiced problems with 
saturation caused from too many solicitations open simultaneously. In 
Dec. 1998, DepSecDef directed the Services to privatize all eligible 
utility systems by Sept. 30, 2003. As of June 30, 2001, 23 of the 1,590 
DOD-owned utility systems had been privatized and solicitations had 
been issued for another 702 systems. This leaves 701 systems to be 
solicited before Sept. 30 (excluding 164 sitemaps declared exempt or 
found to be uneconomical to privatize). The utility industry and I are 
also concerned about the quality of some solicitations: some are too 
vague, others too prescriptive. I will address these qualitative 
issues.

                         environmental concerns
    9. Senator Thurmond. Mr. Gibbs, there has been a concerted effort 
to restrict overflight by high performance aircraft of vast regions in 
the West because of environmental concerns. I believe that if we permit 
this limitation to go into effect, it will have a significant 
detrimental impact on the training of our flight crews.
    In your view what steps should the Air Force take to ensure 
continued access to these open-training spaces?
    Mr. Gibbs. Maintaining continued access to ranges and airspace is 
absolutely critical; the ability to train aircrews is the reason we 
have the air combat edge. It is well acknowledged that America's 
military air superiority in the past was not only based on our 
technological superiority but also on our ability to produce superbly 
trained aircrews. In the past few years, as our technological advantage 
has diminished, our ability to train has served us well. In the coming 
years, our ability to modify ranges and airspace will be critical to 
maintaining Air Force readiness. The goal is to meet evolving military 
needs while addressing and resolving, to the maximum extent possible, 
public concerns and federal, tribal, state, and other agency issues. 
The Air Force has adopted a spirit and practice of flexibility and 
willingness to adapt without compromising operations. Sustainable 
access to ranges benefit many stakeholders and I realize the importance 
of establishing and maintaining permanent relationships with all of 
them. They understand that the ranges contain significant cultural and 
natural areas, are used for grazing and crop production, and allow 
hunting or other forms of outdoor recreation. So they are generally 
very supportive of the Air Force and our mission.

                       moth-balled installations
    10. Senator Thurmond. Although we all understand the need to close 
military installations, it is important that we keep in mind that once 
we eliminate the base structure it will difficult, if not impossible, 
to replace. We should all be particularly concerned about the Army 
because its forces need vast land areas for maneuvers and training.
    Mr. Gibbs, in view of this concern, could you give us your personal 
views on moth-balling valuable installations rather than disposing of 
them as is the current practice?
    Mr. Gibbs. Because the DOD evaluation process for identifying bases 
to close will place primary emphasis on the military value both now and 
in the future, installations selected for closure should not need to be 
mothballed.
    There are a number of considerations that suggest mothballing would 
not be a practical option for the Air Force. If the DOD proposed 
legislation is enacted, the Efficient Facilities Initiatives (EFI) 
provides specific authorities to help us deal with unneeded facilities 
on installations that do not have flying or missile missions. In these 
cases, we would not need or want to mothball these facilities.
    With respect to our flying and missile mission bases, mothballing 
would not be a practical solution for several reasons. Unused real 
estate rapidly becomes unusable. We can preserve buildings and 
utilities. But runways, parking aprons, taxiways, and missile silos are 
subject to rapid deterioration that would be prohibitively costly to 
maintain in useable condition.
    Mothballing the airspace associated with the particular base would 
be an even more significant problem. If needed, we would transfer the 
training and range airspace to other installations, but the airspace 
immediately around the installation would be much harder to withhold 
from other uses. Normally, airspace associated with a base is not 
mothballed. When an Air Force unit no longer has a use for airspace, 
that airspace is offered to another Air Force unit or the other DOD 
services for their use. If the DOD no longer needs the airspace, it's 
returned to the National Airspace System.
    In addition, if we mothball installations, we would also have to 
have procedures and funding to preserve and return them to operational 
status at some unknown time. Finally, mothballing property would also 
prevent its use by other parties imposing an unrecoverable economic 
burden on the communities.

                           contracting reform
    11. Senator Thurmond. In Secretary Rumsfeld's recent testimony 
before the Senate Armed Services Committee, he stressed the need to 
reform the outdated management and acquisition processes in the 
Department of Defense. As a result of that testimony, Senator Allard 
and I contacted the Secretary concerning the innovative contracting 
mechanism being used by the Army for the environmental restoration of 
the Rocky Mountain Arsenal. According to information I have received, 
this innovative approach has produced impressive results. It will 
reportedly reduce program costs by $200 million and the project 
completion time by 3 years, while maintaining planned annual 
expenditures of approximately $70 million with a competent, yet 
reduced, Government core oversight team. I have also been informed that 
the contractor has received numerous accolades due to the, meaningful 
small business involvement they have cultivated.
    I believe this is an innovative and dynamic concept that can be 
applied through the Armed Services, especially at the Corps of 
Engineers that will allow each of you to quickly and efficiently adopt 
best commercial practices. In other words, this contracting model may 
yield dramatic and immediate savings for the Department.
    Do you believe that the Department could benefit from contracting 
reform?
    Mr. Gibbs. Yes, we believe the Department of Defense and the Air 
Force would greatly benefit by contracting reform.

                     rocky mountain arsenal program
    12. Senator Thurmond. Will you commit to studying the Rocky 
Mountain Arsenal Program Management Contract in order to evaluate its 
applicability to other projects in your Department?
    Mr. Gibbs. The Air Force is currently evaluating the benefits of 
several innovative contracting initiatives for environmental cleanup. 
If I'm confirmed, we will include the Rocky Mountain Arsenal program 
management contract concept and consider the lessons in contracting 
learned at Rocky Mountain Arsenal for possible application to our 
cleanup projects, particularly large, complex, multi-year projects.
                                 ______
                                 
    [The nomination reference of Nelson F. Gibbs follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 12, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Nelson F. Gibbs, of California, to be an Assistant Secretary of the 
Air Force, vice Keith R. Hall.
                                 ______
                                 
    [The biographical sketch of Nelson F. Gibbs, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Nelson F. Gibbs
    Nelson F. Gibbs is currently the Executive Director of the Cost 
Accounting Standards Board within the Office of Management and Budget, 
Executive Office of the President.
    Mr. Gibbs spent almost 30 years with the accounting firm of Deloite 
and Touche. He began with them in 1962 and worked as a general 
management and financial systems consultant for clients in government, 
manufacturing, aerospace and defense and financial service industries. 
In the 1970s, he was an audit partner in the Audit Division and in 1982 
became director of Audit Operations in Los Angeles and a member of the 
Accounting and Auditing Executive Committee. In 1986, he was promoted 
to Lead Client Service Partner and became a Senior Partner in Tokyo in 
1988.
    Mr. Gibbs left Deloite and Touche in 1991 to become the Corporate 
Controller for the Northrop Grumman Corporation, a position he held for 
the next 8 years until he left at the end of 1999 to assume his current 
position.
    A native of Rochester, NY, Nelson Gibbs is a 1959 graduate of 
Clarkson University in Potsdam, NY, where he was awarded a Bachelor of 
Civil Engineering. He was commissioned a Second Lieutenant in the U.S. 
Army upon graduation, serving until he resigned his commission in 1961. 
In 1962, he was awarded a Master of Science, Industrial Management, 
from Purdue University in Lafayette, Indiana.
    Mr. Gibbs is also a Certified Public Accountant in California, and 
resides in Washington, DC.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Nelson F. 
Gibbs in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Nelson Frederick Gibbs.

    2. Position to which nominated:
    Assistant Secretary of the Air Force.

    3. Date of nomination:
    July 12, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 8, 1938; Rochester, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Priscilla (Scheib) Gibbs.

    7. Names and ages of children:
    Nelson E. Gibbs, 35; Jennifer G. Bauer, 32; Claire E. Gibbs, 31.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Benjamin Franklin High School, Rochester, NY, 1950-1955, Diploma, 
1955.
    Clarkson University, Potsdam, NY, 1955-1959, Bachelor of Civil 
Engineering, 1959.
    Purdue University, W. Lafayette, IN, 1961-1962, Master of Science 
in Industrial Management, 1962.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Executive Director, Cost Accounting Standards Board, U.S. 
Government, Washington, DC, Sept. 1999-present.
    Vice President and Controller, Northrop Grumman Corporation, Los 
Angeles, CA, June 1991-Sept. 1999.
    Partner, Deloitte and Touche, Los Angeles, CA and Tokyo, Japan, 
August 1962-May 1991.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Co-Chairman,Cost Accounting Standards Board Review Panel, 1998-
1999.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Institute of Management Accountants, California Society of 
Certified Public Accountants, Jonathan Club, Lakeside Golf Club.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    I agree, if confirmed, to appear and testify upon request before 
any duly constituted committee of the Senate.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Nelson F. Gibbs.
    This 13th day of July, 2001.

    [The nomination of Nelson F. Gibbs was reported to the 
Senate by Chairman Levin on August 2, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2001.]

 
NOMINATION OF GEN. JOHN P. JUMPER, USAF, FOR REAPPOINTMENT TO THE GRADE 
      OF GENERAL AND TO BE CHIEF OF STAFF UNITED STATES AIR FORCE

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Cleland, Ben 
Nelson, Carnahan, Warner, and Inhofe.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Charles W. Alsup, professional staff 
member; Judith A. Ansley, deputy staff director for the 
minority; Brian R. Green, professional staff member; Carolyn M. 
Hanna, professional staff member; Ambrose R. Hock, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; Cord A. 
Sterling, professional staff member; Scott W. Stucky, minority 
counsel; and Richard F. Walsh, minority counsel.
    Staff assistants present: Thomas C. Moore, Michele A. 
Traficante, and Nicholas W. West.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Eric Pierce, 
assistant to Senator Ben Nelson; Neal Orringer, assistant to 
Senator Carnahan; Brady King, assistant to Senator Dayton; 
Wayne Glass, assistant to Senator Bingaman; J. Mark Powers, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders and Charles Cogar, assistants to 
Senator Allard; Arch Galloway II, assistant to Senator 
Sessions; and Jeff Prichard, assistant to Senator Lott.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee will come to order. We meet 
today to consider the nomination of Gen. John P. Jumper to be 
Chief of Staff of the United States Air Force. General Jumper, 
on behalf of the entire committee I welcome you, I congratulate 
you on the nomination, and I greet you and your family as you 
prepare to undertake this new service to this Nation.
    It's customary at these hearings that we also address the 
families, because they are such a critical part of your success 
and of your future efforts. The Jumpers are no strangers to 
sacrifice. The Air Force runs in the family. General Jumper is 
the son of an Air Force general. He and his wife Ellen are the 
proud parents of three children, two of whom are Air Force 
officers. Mrs. Jumper, welcome to the committee and I thank you 
for the sacrifices which you have always made in support of 
your husband and your larger Air Force family.
    General Jumper, I think you're the father of three 
daughters?
    General Jumper. Yes sir.
    Chairman Levin. I am also the father of three daughters, so 
one of the questions I will not ask you, at least in open 
session, is where the decision making authority rests in your 
family.
    General Jumper. I appreciate that Mr. Chairman.
    Chairman Levin. The 17th Air Force Chief of Staff will 
inherit the strongest Air Force in the history of air power. 
The men and women of today's Air Force look to their chief to 
guide and to motivate them as they meet the many missions which 
America asks of them: from conducting sorties over the Balkans 
and the dangerous skies over Iraq, to deterring aggression on 
the Korean Peninsula, to providing the critical air lift in 
humanitarian operations from Africa to Southeast Asia. The next 
chief of staff will also inherit an Air Force facing the unique 
challenges that come with preparing for the new challenges of a 
new century.
    How can the Air Force continue its transformation into an 
expeditionary aerospace force that balances the heavy demands 
on the force with the stability and the predictability that our 
airmen and their families need to stay in the Air Force? How 
can the Air Force continue its transformation into an aerospace 
force to include a cadre of skilled space professionals capable 
of preserving America's freedom of action and superiority in 
both air and space?
    During these twin transformations, and given the high pace 
of operations, how can the Air Force ensure an attractive 
quality of life that recruits and retains the high quality 
personnel and families who are the backbone of the force? How 
can the Air Force achieve needed savings to help fund these 
transformations when, as General Ryan recently told this 
committee, the Air Force is over-based for the force structure 
that we have today?
    General John Jumper is well-qualified to lead the Air Force 
as it confronts these and other challenges. A military 
assistant to two secretaries of defense, Secretary Dick Cheney 
and Secretary Les Aspin, and a special assistant to then-Air 
Force Chief of Staff Ron Fogleman, General Jumper is well-known 
to this committee. A Vietnam vet and a decorated pilot, General 
Jumper understands the dangers that our forces face every day. 
A commander of two major Air Force commands, General Jumper is 
a calm and skillful leader in times of crisis, such as during 
Saddam Hussein's 1994 mobilization near Kuwait and the 1999 air 
war over Kosovo. In his most recent assignment as commander of 
Air Combat Command, General Jumper has displayed the vision and 
the leadership qualities demanded of a member of the Joint 
Chiefs of Staff.
    General Jumper has responded to the committee's pre-hearing 
policy questions and our standard questionnaire, and these 
responses will be made a part of the record. The committee has 
a long tradition of relying on the frank and candid advice of 
senior military officers when they testify before this 
committee, even when those views may differ from the policies 
of the administration in office at the time. When General 
Jumper was asked whether he would give his personal views 
before any duly constituted committee of Congress, he responded 
that he would, in fact, do so.
    I want to thank you for that and the other commitments that 
you've made, General, and to note that this committee counts on 
the best possible military advice from you and from our other 
senior military officers in the Department of Defense.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. That was a very 
fine introduction. I shall not try to duplicate it. I ask 
unanimous consent that my statement be placed in the record.
    Chairman Levin. It will be.
    Senator Warner. I'd like to touch on one or two points, 
though. I'm very proud that this wonderful family are really 
constituents in many ways, and that the nominee today is a VMI 
graduate. Of course, Gen. George C. Marshall came from VMI, 
after General Peay, another four star. VMI has a curriculum and 
standards that very closely match those of our three 
distinguished service academies. Year-after-year it turns out a 
number of very fine officers. Many go on active duty.
    In visiting with the nominee yesterday, he told me 10 
percent of his graduating class lost their lives in Vietnam as 
young officers. So, VMI takes its place in history. All across 
the Nation today VMI graduates are wishing they were in that 
seat with you. We're very proud of you, General.
    General Jumper. Sir, thank you sir.
    Senator Warner. Mrs. Jumper, who's been by your side all 
these many years, you would not, as you said yesterday, have 
been able to achieve your successes without strong family 
support.
    General Jumper. Yes sir.
    Senator Warner. I think we should reflect today on Gen. 
Mike Ryan who will step down the first week in September. Mike 
Ryan's father was Chief of Staff of the Air Force when I was 
privileged to serve in the building as Secretary of the Navy. 
What a fine family tradition he had, and superb leadership.
    I remember so well, Mr. Chairman, the times when we as a 
committee met to receive the testimony of the service chiefs 
regarding budget battles. General Ryan would speak very 
forthrightly. General, as you well know, in your capacity 
you'll be called before this committee to give your personal, 
professional opinion on issues. At times, the chiefs have had 
opinions at variance with the Chairman of the Joint Staff and 
indeed the Secretary of Defense. It has happened in the past 
and I expect it may happen on your watch, and we'll receive 
that testimony.
    As I said, Mr. Chairman, he has a most impressive career. 
My statement details that. Yesterday in the course of our 
discussions we talked about the current status of fighter 
aircraft and your grave concern about the need for the F-22 to 
restore America's capability to maintain air superiority over a 
battlefield. Also the extent to which other elements of our 
military, most particularly the ground forces and such 
associated naval forces that may be involved, are severely 
limited in their ability to fulfill their mission unless we 
have air superiority.
    I notice in the background the former chief of the Air 
National Guard just gave me a thumbs up on that comment. The 
Air Guard plays a vital role and I hope you continue to foster 
the role of the Air Guard. There's very little distinction in 
capabilities between an Air Guard and regular aviator today.
    So you're taking on with your family a great challenge. We 
look forward to it. As a Virginian, I express my tremendous 
pride in your being selected by our President and recognized as 
the man most capable to lead our Air Force for the next 4 
years.
    Thank you Mr. Chairman.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    Welcome, General Jumper, and congratulations on your nomination. I 
start with a bit of history. Most people probably do not know that 
General Jumper--if confirmed--will be the first VMI graduate to serve 
as Chief of Staff of the Air Force, and the first VMI graduate since 
Gen. George C. Marshall to serve as chief of a military service. Today 
is a proud day for VMI--and particularly for its Class of 1966.
    General Jumper, you are extraordinarily well-qualified for this 
important billet and your nomination comes at a critical juncture in 
the history of the United States Air Force. I do not make that 
statement lightly. In a changing world marked by newly emerging 
threats, extraordinary competition for resources, including the 
services of highly motivated and skilled men and women, and the 
requirement for transformation of our Armed Forces, the future course 
of the Air Force may well be determined during your tenure.
    Your qualifications to assume the duties of Chief of Staff of the 
Air Force are impressive: command pilot with over 4,000 flying hours; 
combat experience in the cockpit in Vietnam; and Commander, Allied Air 
Forces Central Europe, during the Kosovo air campaign. You have 
commanded a fighter squadron, two fighter wings, and the 9th Air Force. 
You know the inner workings of the Pentagon from your service as Deputy 
Chief of Staff for Air and Space Operations, as Special Assistant to 
the Chief of Staff for roles and missions, and as Senior Military 
Assistant to two Secretaries of Defense (Cheney and Aspin). As 
Commander, Air Combat Command, at Langley Air Force Base, Virginia, you 
have successfully headed the premier organization in the world for 
training, equipping and maintaining combat-ready forces for rapid 
deployment.
    General Jumper, you and I have seen the Air Force transition from 
large standing forces to smaller, highly lethal and rapidly deployable 
units. We have seen the advent of Goldwater-Nichols and its application 
in Operations Desert Shield and Desert Storm and in the Balkans. We 
have seen the Air Force mission change from what General Ryan has 
called ``set-piece deterrence of a reliable enemy'' into a mission that 
must be highly flexible, and able to respond rapidly to unpredictable 
threats.
    The United States Air Force is the pre-eminent aerospace force in 
the world today. Dominance of the air is key to successful operations 
on the land and at sea. Potential adversaries are making ever-
increasing investments in advanced aircraft and integrated air defense 
systems, including surface-to-air missile systems, to challenge our 
dominance in this part of the three-dimensional battlespace. We must 
always stay one step ahead.
    We look forward to your comments on how the Air Force can maintain 
the technical edge currently provided by our aerospace forces in the 
years ahead.
    Mr. Chairman, I look forward to supporting this nomination. I 
believe General Jumper will be an outstanding Chief of Staff of the Air 
Force.

    Chairman Levin. Thank you very much Senator Warner. Any 
other opening statements?
    General Jumper, do you have an opening statement?

   STATEMENT OF GEN. JOHN P. JUMPER, USAF, NOMINEE, CHIEF OF 
                 STAFF, UNITED STATES AIR FORCE

    General Jumper. Sir if you permit me, I do. I'd like to 
thank you, Mr. Chairman, members of the committee. I'm honored 
to be here today as nominee for the post of chief of staff of 
the United States Air Force. I'm humbled by the trust and 
confidence demonstrated by President Bush in forwarding my 
nomination, and I'm thankful for the support of the Secretary 
of the Air Force, Jim Roche, and Secretary of Defense Rumsfeld.
    Allow me also, Mr. Chairman, to express my gratitude to you 
and to the committee for arranging these hearings so promptly 
in the stiff legislative agenda you all are putting up with 
over these last few days. If confirmed, Mr. Chairman, I will 
embrace the privilege of continued service to our Nation with 
all the energy at my command. Sir, I intend to follow the 
objectives put forth by Secretary Rumsfeld and Secretary Roche. 
Expressed in my own way, those include: transformation, 
readiness, retention and recapitalization.
    In transformation, we will continue the work started by 
General Mike Ryan to transition fully to an Air Expeditionary 
Force (AEF) structure. This puts predictability into the lives 
of our people. It includes the ability to fully incorporate the 
Guard and the Reserve into our operations. Today, Mr. Chairman, 
as you know fully 25 percent of our deployed forces are from 
the Guard and the Reserve. This is a level of support that is 
higher than during the middle of Desert Storm, and they sustain 
that now on a daily basis. It's a source of great pride to the 
United States Air Force in its total force concept.
    In transformation, as you said Mr. Chairman, we have to 
prepare for new threats posed by theater ballistic missiles and 
the threats those pose to anti-access; terrorist threats, both 
at home and abroad that we have to look forward to. Our job in 
the United States Air Force, as I see it Mr. Chairman, is to 
make sure that we leverage our technological edge to ensure 
that we have the best asymmetrical advantage in warfare.
    What we bring to the table and what we bring to the joint 
fight with our other service colleagues is stealth, standoff, 
precision, information technology and space. Perhaps nowhere 
greater is that leverage available to us than in space. In that 
regard, Mr. Chairman, the Air Force has fully embraced the 
findings of the Space Commission. General Ryan and Secretary 
Roche are implementing provisions of those recommendations as 
we speak. If confirmed sir, I will continue to do the same 
thing.
    In terms of readiness, this is the heart and soul of our 
capability to perform today's mission, and it emphasizes the 
imperative to keep one foot in today's world as we look forward 
to transformational technologies. Sir, we need to recapture our 
ability to fly all of our flying hour programs. We need to 
recapture the capability to fix our airplanes. For the first 
time in 5 years, Air Combat Command will fully fly its flying 
hour program. When you put the pilots in the air and the 
maintainers feel the pride of fixing those airplanes, you 
improve your retention. I thank you, Mr. Chairman, and members 
of the committee, for your support over the last 3 years. We 
have infused more than a billion dollars into the spare parts 
problem, and we are beginning to reap the benefits of that now. 
I thank the committee for that.
    In the area of retention, we are a retention force in the 
United States Air Force. We depend on retaining the highly-
skilled people that we train. It hurts when you lose a sergeant 
with 8 years of experience, because it takes 8 years to replace 
that sergeant. The emphasis that the committee has placed on 
housing, pay, and bonuses has helped very much in that regard, 
Mr. Chairman. We thank the committee for their efforts and 
their support.
    As far as the Air Force, sir, if I am confirmed we will 
continue to also emphasize the intrinsic values of service to 
Nation. Often when guys like me say ``quality of life,'' what's 
heard out there is higher standard of living. But quality of 
life is more than just a higher standard of living, it's a 
higher standard for your whole life. Our youngsters out there 
look only for the opportunity to be a part of something that's 
bigger than they are.
    Mr. Chairman, I know that you, Senator Warner, and others 
visited over in Europe during the Kosovo crisis. You walked the 
flight-lines and the battlefields of that war-torn area. You 
saw our great, young Americans--Active, Reserve, Guard--
performing. They were no less committed than any generation of 
Americans has ever been committed. They look for leadership, 
and when you give them that leadership they perform with all 
the patriotism and commitment of any generation.
    Finally, sir, in terms of recapitalization, we need your 
help and I hope to confer with you in the future, if I'm 
confirmed, to recapitalize a force that now has an average 
aircraft age of 22 years. If we are able to procure everything 
that's on the books now, in full quantity, in 15 years the 
average age of our aircraft will be 30 years of age. We need to 
recapitalize our force, not only in terms of force structure, 
but in terms of technology. I fear that our technological edge 
is waning.
    I know that Senator Inhofe and Senator Warner have heard me 
say this before, but in our testing of some foreign aircraft--
and I can't go into details at this level--but our best pilots 
flying their airplanes beat our best pilots flying our 
airplanes every time. I'd be honored, Mr. Chairman, to give you 
the details of the tests that went into that.
    But it does go forth to emphasize the need for the F-22. 
The F-22 not only beat the things in the air, but the F-22 with 
the super-cruise capability will also be able to penetrate the 
highest defenses that we know are coming down the road. It will 
enable the B-2 bomber to come into the daytime for the first 
time. In that regard, we also need to recapitalize our bomber 
force and continue to modernize so that our long-range strike 
assets can communicate en route to targets and have the ability 
to carry larger loads into the target area.
    Mr. Chairman, if I'm confirmed I can think of no greater 
honor than to lead the greatest Air Force in the world. Our 
people are our greatest asset. They ask only that their 
sacrifices be appreciated, that they have the resources to do 
their job, and that when they win they're able to do so by a 
score of 100 to nothing for their Nation. I thank this 
committee for providing the resources to bring us these great 
young people, great Americans one and all. I vow that if I am 
confirmed I will continue to do everything in my power to earn 
the right to lead them.
    Mr. Chairman, I'd like to offer my detailed written 
statement for the record, and sir, I'm prepared to answer any 
questions from you.
    Chairman Levin. It will be made part of the record, thank 
you.
    [The prepared statement of General Jumper follows:]
            Prepared Statement by Gen. John P. Jumper, USAF
    Thank you Mr. Chairman. I am honored to be here today as nominee 
for the post of Chief of Staff of the United States Air Force. I am 
humbled by the trust and confidence demonstrated by President Bush in 
forwarding my nomination and am thankful for the support of Secretary 
of the Air Force Jim Roche and Secretary of Defense Rumsfeld. Allow me 
also, Mr. Chairman, to express my gratitude to you and to the committee 
for arranging this hearing so promptly. If confirmed, Mr. Chairman, I 
will embrace the privilege of continued service to our Nation with all 
the energy at my command.
    Mr. Chairman, if confirmed I intend to follow the objectives put 
forth by Secretary Rumsfeld and Secretary Roche that include 
transformation, readiness, retention, and recapitalization.
    The word ``transformation'' has become commonplace today. However, 
we believe that during the course of our relatively brief history the 
United States Air Force has been on a consistent course of 
transformation. True to form, during most of the decade of the 1990s 
the Air Force was in an especially intense period of transformation. 
Indeed, we completely reshaped ourselves from a Cold War configuration 
that had us focused on a Warsaw Pact invasion of Europe into an agile 
force able to respond quickly in the contingency world we live in 
today. General Mike Ryan has led the creation of our Aerospace 
Expeditionary Forces (AEF). The AEF is a rotational force construct 
that allows Air and Space forces to respond rapidly throughout the 
spectrum of conflict and has produced a deployment rhythm that provides 
our Airmen predictable rotation schedules around which to include time 
for family, off-duty education and leave. The AEF is the tool we need 
to manage an Air Force that has decreased in size by 35 percent over 
the past 10 years while contingency taskings have increased by 300 
percent. If confirmed, I will continue to maximize the many benefits of 
our AEFs in order to provide our warfighting commanders in chief potent 
capabilities to produce the effects they need.
    Transformation also includes how we deal with an uncertain future. 
We have learned throughout the conflicts of the 1990s how America 
values the benefits of asymmetrical advantage. Our Nation's Air Force 
provides many of the tools that lever our technological superiority and 
produce asymmetrical advantage. Stealth, standoff, precision, 
information dominance, and space are examples of these leveraging 
technologies. In Air Combat Command we have developed a concept called 
Global Strike Task Force that combines the attributes of stealth; the 
horizontal integration of manned, unmanned and space platforms; the art 
and science of prediction; and real-time command and control. The 
asymmetrical advantage of these capabilities will combine with those of 
the other services to overcome emerging anti-access challenges. In 
addition, many of these technologies will enable capabilities against 
other new types of threats such as terrorist activity. If confirmed, I 
will continue to pursue operational concepts and capabilities that 
leverage our asymmetrical advantage.
    Perhaps the greatest opportunity to leverage asymmetrical advantage 
is space. The Commission to Assess National Security Space Management 
and Organization, chaired by Secretary Rumsfeld, focused the Air Force 
on its unique competencies in space and the need for the Air Force's 
leadership role. General Ryan and Secretary Roche have been fully 
engaged in implementing the commission's recommendations. If confirmed, 
I will continue to advance the work of developing a space culture. The 
Air Force will also work with the other services and agencies to insure 
proper levels of support for their space requirements and the robust 
integration of space into joint warfighting.
    Readiness in the Air Force will continue to require our focused 
attention. At the beginning of the decade of the 1990s, as we entered 
Operation Desert Storm, 95 percent of our Air Force combat units were 
in the top two categories of readiness. Since 1996 we have seen that 
number drop to 68 percent. Likewise, the Mission Capable (MC) rate for 
our fighter aircraft at the beginning of Desert Storm was 88 percent; 
by the year 2000, the MC rate for fighter aircraft was 75 percent. 
These trends were clearly the result of budget pressures that, when 
combined with the difficulties of aging aircraft, resulted in 
inadequate spare parts and sustainment engineering for our combat 
forces. In addition, an important factor in readiness is the 
maintenance of our bases' infrastructure, an area that has been 
neglected over the past decade. With the help of Congress and support 
from this committee, we have arrested the decline in some of these 
areas and are beginning to see some positive trends. If confirmed, I 
will work with Secretary Roche to keep our aircraft combat ready, and 
to give our Airmen on the flight line the resources and facilities they 
need to do their job. Retention also improves when our Airmen are able 
to take pride in their workplaces and their high mission capable rates 
that accompany safe and reliable aircraft.
    There can be no doubt that the quality of our Air Force is directly 
attributable to the quality of the men and women who volunteer to 
serve. That quality has to be sustained in the people we recruit and, 
more importantly, in the people we retain. With the help of incentives 
supported by Congress, in fiscal year 2000 the Air Force achieved its 
recruiting goal of more than 34,000 new Airmen. In fiscal year 2001 we 
are at 101 percent of our goal to date, all without lowering our 
recruiting standards. Retention issues are also improving but are more 
difficult. Pilot retention is especially difficult. Improvements in 
readiness enhance the retention of pilot and flight line maintenance 
skills. Just as buying spare parts keeps the airplanes flying, a fully 
funded flying hour program keeps the pilots in the air--right where 
they want to be. I deeply appreciate the commitment made by Congress to 
fully fund our flying hour program. This year, for the first time in 5 
years, Air Combat Command will have the resources to fly its full 
program. We in the Air Force also appreciate the incentives provided by 
the Congress that have helped offset the lure into civilian life 
inspired by a vibrant economy. Dual-career families and extended time 
away from home remain issues. If confirmed, I will join with the 
Secretary of the Air Force to promote the values of service to country 
while working to keep an appropriate balance of compensation for those 
who serve.
    This committee is well aware of the need we have to recapitalize 
our force both in air and space. In space, for example, I believe the 
acquisition of space-based radar will be critical to the integrated 
constellation of air and space-borne sensors. This will allow us to 
combine the persistence of airborne systems with the high ground of 
space. In the air, the F-22 will be crucial to our ability to ``kick 
down the door'' with the Global Strike Task Force. Many have 
characterized the F-22 as strictly an air-to-air fighter, but the main 
strength of the F-22 will be its unique ability to combine stealth and 
supercruise to penetrate and precisely bomb future surface-to-air 
missile systems. The leverage of the F-22 will allow us to bring 
stealth into the daytime. The F-22, combined with the B-2 and F-117, 
will provide 24-hour stealth as the F-22 both protects the force and 
suppresses the most difficult threats. This does not detract from the 
F-22s air superiority capability. We fully understand the capabilities 
of the next generation of potential threat aircraft, specifically the 
SU-27 and SU-30 series of fighters-airplanes that have been produced, 
are available, and are being actively marketed. They outperform our 
current generation F-15 and F-16. The F-22 will provide us another 
generational leap over these aircraft and anything we see on the 
horizon. At the low end of the fighter modernization mix is the Joint 
Strike Fighter (JSF) which for the first time will provide persistent 
stealth over the battlefield for the agile and rapidly emerging targets 
that require close proximity for timely response.
    The modernization of our Air Mobility fleet is critical as we set 
goals of improving the C-5 Mission Capability rate and properly sizing 
our Air Mobility force. We also face critical aging issues with our 
Boeing 707 airframe fleet that includes KC-135 tankers and surveillance 
platforms that now average 40 years of age. If confirmed, I would ask 
Secretary Roche to support a plan for transition to a new, more 
reliable airframe.
    Long range strike modernization, that is, modernization of the B-1, 
B-2 and B-52, has also suffered from inadequate funding. Our plan 
continues to emphasize data-link communication for enroute retargeting 
and threat information; full integration of precision weapons; and 
reliability upgrades to control operating costs. The stealthy B-2 will 
continue to be our leading long-range penetration capability; the B-1 
will be our heavy hauler in a medium threat environment; and the B-52 
will provide needed stand-off capability. If confirmed, I will continue 
to pursue the investments needed to sharpen the ``teeth'' of our long-
range strike assets.
    Unmanned aircraft will continue to evolve. The PREDATOR UAV will be 
modernized with laser designation capability as we continue to field 
the current production version. Global Hawk will also continue its 
development. The UCAV will emerge as a conventional weapons capable 
UAV. If confirmed, I will continue to support-as I have in the past-
operational concepts that include comprehensive use of unmanned 
vehicles as they continue to prove their capabilities.
    Finally, Mr. Chairman, Secretary Rumsfeld and Secretary Roche have 
both testified to this committee about the need for acquisition reform 
and the increasing amounts of time required to develop, test and field 
systems. I have told Secretary Roche, from my position as Air Combat 
Command commander, that I believe at least one part of acquisition 
reform is requirements reform--requirements that are crafted by the 
operators to pass to the acquisition community. I believe we can close 
the wide gap that currently exists between the requirements and 
acquisition process and work together for greater efficiency. If 
confirmed, I will undertake that task.
    Mr. Chairman, allow me to restate my gratitude to you and the 
committee. I can think of no greater honor than to lead the greatest 
Air Force in the world. Many on this committee traveled through Europe 
during Operation Allied Force and saw first hand our superb men and 
women at work. You saw a generation of young Americans, who many think 
incapable of commitment, dedication or patriotism. You saw, as I see 
every day, a generation no less committed, dedicated or patriotic than 
any generation that ever served their Nation. They only ask that their 
sacrifices be appreciated, that they have the resources to do their 
job, and that when they win they can do it by a score of 100-0 for 
their Nation. I thank the committee for providing the resources to 
bring us these great young Americans and I vow that I will continue to 
do everything in my power to earn the right to lead them.
    Thank you.

    Chairman Levin. We call on Senator Warner first.
    Senator Warner. I thank you, Mr. Chairman. I'm just going 
to ask that my questions be put in the record. But I do want to 
lead off with a subject we talked about yesterday, and that's 
the unmanned programs that are becoming increasingly vital to 
our national security. You share that objective of this 
committee and its legislation.
    Also yesterday, you told me in a very dramatic way about 
the concern you have about control of the airspace over a 
battlefield today. I think you just touched on it.
    General Jumper. Yes sir.
    Senator Warner. Namely that, unless we move ahead--
hopefully successfully on a technological basis with the F-22 
program and the Joint Strike Fighter--we'll be yielding that 
ground to control the airspace above a battlefield. Isn't that 
your professional judgment?
    General Jumper. That's correct.
    Senator Warner. I thank the Chair and members of the 
committee. Good luck to you. You'll have my support.
    General Jumper. Thank you, sir.
    Chairman Levin. Thank you Senator Warner. General, my 
impression of the fiscal year 2002 budget is that the 
Department of Defense has put a lot of money in personnel, 
readiness, and quality of life programs, which we have also 
emphasized, as you point out. But where there is a shortfall is 
in the area of modernization. That seems to have been put off 
until next year in that budget request. Would you say that's an 
accurate assessment?
    General Jumper. Sir, I would and I have not been close to 
the budget process in my position at Air Combat Command. But 
yes sir, I would agree with that assessment.
    Chairman Levin. Can you give us an assessment as to 
whether, if the Air Force budget request for next year stays 
about where it is this year in real terms, what impact that 
would have on your modernization plans?
    General Jumper. Well sir, we will continue to have 
disconnects, especially in our bomber force, as we try to 
upgrade our bomber force. We will continue to have disconnects 
in our ability to repair our bases and the working facilities 
for our people. As a matter of fact, it's that piece of the 
budget that goes to the very bottom and we use that to pay a 
lot of the other bills. It will definitely stall our ability to 
recapitalize ourselves, Mr. Chairman.
    Chairman Levin. The February budget blueprint document of 
the president states that: ``With 23 percent in estimated 
excess infrastructure, it is clear that new rounds of base 
closures will be necessary to shape the military more 
efficiently''. Do you believe that the Air Force has excess 
infrastructure that uses up resources that could be better 
applied elsewhere?
    General Jumper. I do, Mr. Chairman.
    Chairman Levin. You made reference to recapitalization of 
our bomber fleet. According to the 1999 report, it says the 
following: ``Based on current operating procedures, attrition 
models and service lives, the total bomber inventory is 
predicted to fall below the required 170 aircraft fleet by 
2037.'' The report also highlights the range of modernization 
efforts that will be needed in the near-, mid-, and long-terms 
to keep bombers flying through 2040. On the Air Force priority 
list for unfunded items, there is a priority for upgrades to 
our bombers. The cost of that would be $800 million. That would 
keep our B-52s going through the year 2040, as I remember the 
report.
    General Jumper. That's correct Mr. Chairman.
    Chairman Levin. Which would mean that their life would be 
extended to 80 or 90 years. These are the B-52Hs. That is what 
the Air Force hopes for, is that correct?
    General Jumper. That's correct Mr. Chairman.
    Chairman Levin. Now you made reference to the average age 
of our bombers. That age is going to be even greater the way 
we're going, but it seems at least in terms of the first blush 
at looking at the Air Force needs, you want the B-52Hs at least 
to be in service for another 40 years, which means that the age 
of our fleet will continue to grow. But that's what the Air 
Force wants, if we provide you the upgrades.
    Now can you explain to us how we're going to tell those 
pilots and their families that hey--we won't be doing it, 
somebody sitting here in 29 years will be doing it--``You're 
going to be flying a B-52H, which is now 60 years old, but hey, 
back there in the year 2001, they wanted it that way.'' Why do 
you want it that way?
    General Jumper. Yes, Mr. Chairman, it is counter-intuitive. 
We benefit, Mr. Chairman, from the way they built airplanes 
back in the 1960s before the advent of computer-aided design. 
Not knowing all we know about structures today, they over-built 
them by two or three times. So the structure of the B-52, at 
the rate we fly it today, is very sound out to those years. I 
might add, Mr. Chairman, that as you well know there is very 
little on the B-52 that is as old as the airframe itself, as we 
continue to upgrade and modernize the avionics. Also, we don't 
put that airframe, the B-52 airframe, into the high-threat 
areas. The B-52 in its balance of capabilities across our 
bomber force, we use to stand-off, and primarily the use of 
cruise missiles. In that way, it does not go as much in harms 
way as the other more penetrating bombers do. So it's taking 
advantage of this over-engineering of the 1960s, sir, that 
allows us to do this. We want to take full advantage of the 
capability of that airframe. It's a very good long-range asset.
    Chairman Levin. Is it also then, in summary, a very 
different plane that would be flying 20 years from now or 30 
years from now, than the one that is flying now?
    General Jumper. Absolutely right sir, as we continue to 
upgrade them.
    Chairman Levin. I'm just trying to help out those Senators 
that will be sitting here 20 years from now.
    General Jumper. I understand.
    Chairman Levin. They'll be able to look back at a record 
and say, ``Hey, that chief of staff said that's what we ought 
to be doing.''
    General Jumper. Yes sir, I understand.
    Chairman Levin. I'm just trying to lend a hand to those 
future Senators of America.
    General Jumper. It is counter-intuitive.
    Chairman Levin. On to the missile defense budget request, 
General. There's a proposal for a $3 billion increase for 
missile defense, which would be a 57 percent increase over the 
current fiscal year. At the same time, we're decreasing the 
investments in certain other critical areas, such as 
procurement, science and technology. In your view, are we 
risking putting a disproportionate level of resources into 
those missile defense programs?
    General Jumper. Mr. Chairman, I would say that first of 
all, the Secretary of Defense's detail plan on missile defense 
has not been rolled out. I certainly wouldn't want to pre-empt 
his conclusions in that regard. What I would say, sir, is that 
I agree that it's going to mean some very tough trade-offs. My 
belief is that we need to make sure that the technologies that 
emerge with regard to national missile defense have to prove 
themselves worthy as we invest in those into the future, 
because the trade-off will be very difficult indeed.
    Chairman Levin. Thank you, my time has expired. At this 
time I would ask unanimous consent that the statement of 
Senator Thurmond be placed in the record.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman.
    Mr. Chairman, I join you in welcoming General Jumper as the 
committee considers his nomination to be the next Chief of Staff of the 
United States Air Force. In his more than 35 years of distinguished 
service to our nation, he has served as a fighter pilot during the 
Vietnam War, as a staff officer both on the Air Staff and Joint Staff, 
as the Commander of the United States Air Forces in Europe, as 
Commander, Air Forces Central Europe, and most recently as the 
Commander of the Air Combat Command. I believe it would be difficult to 
find a more qualified officer to take charge of our Air Force and lead 
it through the transformation that all our services must undergo in 
order to meet the ever-changing threats of the post-Cold War era.
    General Jumper, I recall your tour as Commander of the 9th Air 
Force at Shaw Air Force Base. I know all your friends in South 
Carolina, especially the Sumter area, join me in congratulating you on 
your nomination. We wish you success and hope you will not forget your 
tour in our great State.
    Thank you, Mr. Chairman.

    Chairman Levin. Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I'll just start 
off by saying I can't think of anyone in America who is better 
qualified for the job that you are pursuing than you are, 
General Jumper. We're very proud that you're willing to do 
this, and that your family is willing to do this.
    One of the things you pointed out in your oral statement 
was the significance of fixing an aircraft. That leads me into 
the depot situation. Of course, we went through some depot 
rounds. We went from five air logistics centers down to three, 
three that were operating at 100 percent if you're taking an 8 
hour operation. I agree with that because we have to protect a 
surge capability in times of war. On the other hand, our three 
depots are really in a kind of bad repair. A lot of it is World 
War II technology and there's a need to upgrade these 
facilities. What is your thought about the future of our depots 
and about our need for the depots--whether we use 50/50 or any 
other criteria--to have that capability, not just on existing, 
but on new platforms, of doing it internally in a core basis?
    General Jumper. Senator, the founding notion behind the 
depots is that we have a capability within our service to surge 
and to repair when needed and in times of crisis. I see no 
reason to erode that philosophy in any way and I'm committed to 
that philosophy. If I'm confirmed, sir, there's a lot I do not 
yet know about the depot issues. With your indulgence and 
permission I'd like to make the same commitment that Secretary 
Roche made, to make early on in my tenure, if I am confirmed, 
visits to the depots.
    Senator Inhofe. Good, that would be very helpful. Secretary 
Roche did go with me out to Tinker Air Force Base and we were 
able to extract from him his feelings, which are essentially 
what you just articulated. In the area of encroachment, this is 
a problem. We have four major areas. One I'm very familiar with 
is environmental encroachments, because I served on the 
Environment and Public Works Committee. We see what's happening 
not just in the Air Force but services all around. Second, 
urban sprawl. Third, the spectrum problem that's up. Fourth, 
what's happening with our ability for live ranges.
    I'd suggest the problems that we're going through right now 
in Vieques are not just the Navy's and the Marines' problems, 
they're your problems. Because if we allow a bunch of law-
breaking renegades to kick us off of ranges that we own, we're 
going to have a very serious problem around the world on all of 
our ranges, and domestic ranges, too. When you are confirmed, 
how are you going to handle some of these encroachment 
problems?
    General Jumper. Senator, that's a tough one. The 
environmental issues are tough enough. The only way that we've 
been successful working with this is that we dedicate people to 
the job of coordinating with the interested parties.
    The tribal issues in the West, the environmental issues, we 
remain in daily face-to-face contact with the concerns of those 
and we try to address those one at a time. The encroachment 
issue is a creeping issue. We can't afford to wake up one 
morning and discover that encroachment prevents us from 
launching our live ammunition training out of Nellis Air Force 
Base, for instance.
    The only way that we've been successful working this is to 
stay engaged. When we bring on the new systems that require 
greater stand-off, like the F-22, new weapons in the B-2, this 
is going to be a more and more difficult problem and will 
require greater and greater attention.
    Senator Inhofe. One aggravating problem is that the better 
the job we do, the more the problem. Certainly some of our 
ranges down in Senator Cleland's area--just to defend the red-
cockaded woodpecker on some of our ground training ranges, 
we're doing such a good job that their expected habitat is 
actually growing, which takes up more of our training space. So 
it is a problem that's getting worse.
    You've addressed the F-22 and the necessity to get in some 
new platforms. One of the characteristics you have that I 
appreciate so much, and I say this in all honesty, is your 
willingness not to be politically correct. A couple of years 
ago it took a lot of courage for you to admit that our 
platforms, contrary to public belief, are not the best out 
there; that our air-to-air F-15 is inferior, in many ways, to 
the SU-27. Our air-to-ground F-16 is inferior in many ways, in 
maneuverability, range, range detection and radar detections, 
than the SU-30.
    Yet, we've seen just in last week's paper ``China Signs $2 
Billion Deal for Russian Fighter Jets''. So this equipment 
that's out there, that's better than ours, is on the open 
market. China may have somewhere around 240 SU-27s and SU-30s, 
not delivered, but ordered--some delivered. We don't know the 
exact number, but it's growing every day. So this is a 
proliferation.
    There's no reason I can see that Iran, Iraq, and other 
countries wouldn't have access to this superior equipment. I'd 
like to have you at least make an expression to this fact so 
that all of America will hear that this modernization program 
is absolutely essential. Up until recent years we've always had 
the best.
    We had a friend of mine here during the last hearing from 
the Vietnam era who had done 288 missions. He said, ``Whether 
it was the F-4, F-100, F-105 or the A-6 or an A-4, we knew 
during that time that we had the best equipment.'' So what are 
your thoughts about our relative advantages at this date?
    General Jumper. Thank you for that question Senator. We 
talk often about skipping a generation of technology. As you 
saw first hand in Operation Allied Force, the pilots from the 
Air Force, the Navy and the Marine Corps that we put over 
downtown Belgrade during the height of that war had over 700 
surface-to-air missiles shot at them. I can guarantee you that 
it didn't occur to one of them at the time that this 
technologically inferior country down here was so inferior that 
we didn't have to worry about those 700 surface-to-air 
missiles. We did.
    As we progress into this next generation this F-22 puts us 
as far ahead of anything that we know is coming down the road, 
as the F-15 did over the MiG-21 25 years ago. We have had, 
Senator, two new bombers before we've had the last new fighter. 
We've fielded two new bombers before we've had the last new 
fighter. That's why we put the emphasis now on the F-22, not to 
the denigration of the other platforms, but just because of the 
necessity to upgrade.
    The F-22 will enable us to kill the most difficult SAMs. It 
will allow us to bring stealth into the daytime for the first 
time. This is the generation of technology we need to lever 
this technological advantage.
    Senator Inhofe. Thank you very much. My time is expired but 
I have more for the second round. Thank you sir. Thank you Mr. 
Chairman.
    Chairman Levin. Senator Nelson.

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you, Mr. Chairman. General, 
congratulations on your nomination. The Air Force is of vital 
importance not only to our country but, on a very parochial 
basis, to the state of Nebraska because of Offutt, the Fighting 
55th located in Nebraska.
    One of the concerns that everyone expresses with regard to 
the military is recruitment and retention. I think you've heard 
me raise the point before, and I shall do it again today, about 
the importance of total force and a Total Force Initiative 
that's in place in a number of installations around the country 
today, but particularly in the 55th. The relationship between 
the Air National Guard and Nebraska--that I had the privilege 
of heading as Governor of Nebraska for 8 years and have some 
familiarity with it in that capacity--the relationship between 
the Air Guard, the Air Reserve and the regular military and 
what we can do to make sure that all components of the Air 
Force are integrated in a meaningful, cost-effective and 
helpful manner to help with the retention of those sergeants 
that had been trained for 8 years that are now lost, and the 
pilots that had countless thousands of dollars invested in 
their skill levels. I'm interested in your attitude toward this 
and what plans you may have not only to retain what we're doing 
with Total Force Initiative today, but how you may be planning 
to expand it as the chief of staff?
    General Jumper. Senator, thank you for that. We are well 
aware of how well that works in the 55th. That's a model, 
actually, for where we need to go.
    Sir, in the Reserve Forces today we have more than a third 
of our strike capability in between the Guard and Reserve. It's 
not only the support forces but it's the combat forces that are 
very much integrated with the active duty. I know Secretary 
Roche is anxious to find new ways to take advantage of the 
great skill that goes from our active duty Air Force and into 
our Guard and Reserve units, skill that can be used to train 
our youngsters.
    We're right now about 60 to 70 percent manned in the proper 
skill levels in our maintenance force in the active duty. A lot 
of these skilled maintainers go out and go into the National 
Guard and Reserve. There are ways to take advantage of that 
skill and integrate it into our active units and Secretary 
Roche is pledged to find those ways. We have had some tests in 
some of our fighter units, and we will continue to test with 
maintenance capability as well on the right mix and how we do 
this. So, I am very proud, sir, of the United States Air Force 
and its Total Force effort and the way we continue to find new 
ways to take advantage of the great experience we have in our 
National Guard and our Reserve.
    Senator Ben Nelson. It's encouraging to note that when you 
are dealing with active and Reserve and Guard units, that the 
pride of the Air Force can be in the solidarity of the program 
rather than in competition among the units. So, continuing to 
upgrade the training and the skill levels of those outside the 
active forces is obviously very important so that we don't end 
up with any inferior mix of the forces.
    General Jumper. Yes Senator, I'd be honored if I could come 
over and have you share those ideas with me, because we're 
looking for ways to do just that.
    Senator Ben Nelson. I appreciate it, thank you very much. 
Thank you Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Cleland.

                STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. Thank you very much. General, we 
appreciate your service to our country. I appreciate your 
willingness to tackle this tough job. I might say to my fellow 
members on the committee if you want to really see the extent 
to which General Jumper was involved in the Balkan War and was 
the eyes and ears of the NATO commander, General Wesley Clark, 
just read a book called Waging Modern War. I agree with Senator 
Inhofe, I think we are blessed. No one is better prepared than 
you are, coming right from the battlefield to lead the Air 
Force and our American military into a new era of how we wage 
modern war.
    One of the great lessons of that war that General Clark 
brought to our attention was that we took the use of precision 
munitions to a new level, as he testified about a year ago. My 
concern is that this budget does not address the shortfall. 
Could you tell us what is the current shortfall, generally, in 
what is called war reserve munitions, especially precision 
guided munitions?
    General Jumper. Yes Senator, in the current budget we have 
attempted to fix some of our training munitions shortfalls, but 
we continue to be behind in procuring our most beneficial 
precision munitions; complicated by the expenditure rate of 
over 5,000 of these weapons in Operation Allied Force and also 
we continue every day to expend a certain number of weapons in 
Iraq in Northern and Southern Watch, in retaliation to 
offensive action on the part of the Iraqis. The combination of 
these episodic contingency operations, like Operation Allied 
Force, and sort of the daily expenditure rate, has kept us from 
being able to replenish the spares that we need.
    Senator, if I'm confirmed this is going to be a major point 
of emphasis for me as we replenish. I will tell you, there's 
another problem we have that we're going to have to address, 
and that is with the advent of these new precision munitions. 
We're not sure yet how we're going to train with these joint 
standoff weapons that are very expensive, whether we're going 
to have to do it with a synthetic training device in a 
simulator of some type, and how we're going to actually be able 
to practice with live munitions in the air. It's a problem 
we're going to have to address. If I'm confirmed, Senator, I'm 
going to take both those issues on very aggressively.
    Senator Cleland. Well, you certainly have my support in 
this regard. I would hope that you'd just continue to share 
with us all that you feel strongly about that we might help you 
in waging modern war, if we have to do that, and being 
successful. The whole precision munitions issue, I think, is a 
critical one.
    Let me just move on. There are a couple of parochial issues 
in Georgia other than the red-cockaded woodpecker. I wish it 
was that simple. The decision on the B-1 for Warner Robins was 
like a B-1 bombing raid, left $70 million worth of 
infrastructure standing and devastated some 800 to 1,000 
people. So our people there are still trying to recover from 
that raid. May I say that I appreciate your willingness, 
voluntarily, to come down with me to Warner Robins and see that 
facility for yourself.
    The issues of depot maintenance that Senator Inhofe raised 
have been issues that we have been jointly struggling with for 
a long, long time simply because we believe together that any 
military service needs a basic, fundamental, core capability 
without which we cannot wage modern war. We cannot sustain 
ourselves on the battlefield once we get in a conflict or 
crisis. It's kind of a no-brainer to us and we've had a number 
of years here trying to deal with that question. Of course, 
Warner Robins is deeply involved as one of the great three ALCs 
that support our Air Force.
    May I say that, in terms of Warner Robins, it maybe is a 
microcosm in terms of one base of how you go to war in a modern 
way. The old JSTARS program, coming out of Warner Robins, the 
whole emphasis on increased surveillance and reconnaissance on 
the battlefield that General Clark wanted to see, that you've 
testified for, is there. The whole issue of the F-22--there's 
not been a bigger supporter of the F-22 since day one since I 
got here 5 years ago. I believe in air dominance. I believe in 
first-see, first-fire, first-kill.
    There's been no bigger booster of the C-130J program, the 
ability to move to a theater with great lift capability. We 
know we're going to have to move. The Army is actually sizing 
its transition divisions and forces to the C-130 itself. Again, 
the way we wage modern war.
    I stand fully behind you in your effort to upgrade and 
innovate so that we maximize our leverage, as you point out, 
our technology in every way to minimize our risk and our 
carriers. I want everyone to know that this whole discussion on 
the B-1 is not some retrograde movement. We would like to just 
take care of the people that have invested their lives in this 
effort. We hope that when you come to Warner Robins you can 
have some insight as to what new missions these wonderful 
people might enjoy.
    May I just get you on the record on a couple of points? 
Retention. It seems to me that when you spend $6 million to 
train a pilot, or that great NCO who has had 8 years in the 
service and is really beginning to pay back in leadership 
skills and everything else for the training you invested in 
him, it's a crying shame for those 8- to 9- to 10-year veterans 
to bail out of the military, many with tears in their eyes. 
Saying what? Not that they don't like their job, but their 
family needs begin to take precedence.
    One of those family needs is education. We have some 
legislation that we'll be putting forward to make the GI Bill 
more family-friendly, to allow that service man or woman a 
choice of having that spouse and their kids pick up at least 
half of their unused benefits. Is that something that is in 
agreement with your thinking of some of the arrows in your 
quiver that you need to help with the retention challenge?
    General Jumper. Senator, as you and I have discussed 
before, we have a saying that we recruit the member but we 
retain the family. I am familiar with the Montgomery GI Bill 
and its provisions, and in my personal opinion that is exactly 
the sort of thing that helps us retain that family and keep 
that skilled member in our United States Air Force, yes sir.
    Senator Cleland. Thank you very much for your service to 
our country. Thank you very much Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Carnahan.

               STATEMENT OF SENATOR JEAN CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman. I want to 
welcome you here today General Jumper. Certainly your 
experience and your innovation in reshaping the Air Force makes 
you an exceptional candidate, and I commend you for that.
    General Jumper. Thank you.
    Senator Carnahan. The B-2 has an impeccable track record, 
as was evidenced by the Kosovo operation. In prior testimony 
General Ryan indicated that the B-2 is ``a centerpiece of our 
capability to project power now and it will be in the future.'' 
I certainly believe that statement to be true and I hope that 
the B-2 will further be used strategically to close the Air 
Force's access gap to Central, East and Southern Asia. Would 
you agree with this?
    General Jumper. I would, Senator, indeed. The B-2 in the 
performance and operation of Allied Force was better than any 
of us thought. I took great pains personally at the very 
beginning of that conflict to make sure that the B-2, the B-52 
and the B-1 were part of that conflict.
    With regard to the B-2, Senator, we have $3.7 billion over 
the Future Year Defense Plan invested in the B-2 for its 
survivability, its lethality and its supportability, $300 
million in 2002. It does not do all that we would like to do 
with the B-2. But what it does do is it begins a program where 
we'll be able to take the aircraft from the current load of 16 
precision guided or near-precision guided munitions up to 80 
near-precision guided munitions. We think that this increase in 
lethality is going to help us with the fixed target problem 
that we have and enable us to, in combination with the F-22, 
handle any threat we see out there in the future. I appreciate 
your support for this marvelous airplane, Senator.
    Senator Carnahan. Secretary Roche, when he was testifying 
here before this committee, indicated that in our future force 
F-22s may be required to escort the B-2 in battle. I understand 
that you have been developing a concept for such deployments in 
your Global Strike Taskforce plan. Would you describe the 
circumstances under which they would require such a force?
    General Jumper. Thank you for that question, Senator. We've 
developed a concept at Air Combat Command called Global Strike 
Taskforce which is a concept that will try to integrate us with 
the other services. As a matter of fact, I'm working closely 
with the Navy, the Army and the Marine Corps so that we can 
develop jointly this concept.
    Essentially what it does is it combines the attributes of 
stealth, as I've described before the F-22 and the B-2, to 
bring the B-2 into the daytime. The second element of it is 
that it describes an architecture for the horizontal 
integration of manned platforms, unmanned platforms and space 
platforms. When I say manned, I don't just mean airplanes, I 
also mean eyes on the ground with our special operations 
forces. When I say unmanned, I don't just mean UAVs, I mean 
unattended ground sensors and the technology that brings. Of 
course, combined with the high ground of space.
    When you combine the persistence of the airborne platforms 
with the high ground of space, you have no place to hide. We 
would integrate these at the machine level, at the digital 
level, so we don't have human beings that have to interpret the 
digits in order for us to get precise target location and 
precise identification. That's the second element.
    The third element is that we re-engineered the way we do 
our intelligence, so we refined and advanced the art of 
prediction. Right now our intelligence is based on a collection 
mentality. What we are trying to do is advance the art of 
prediction so that we are using our ISR assets during combat 
more to confirm that which we predicted than for pure 
discovery.
    Finally, Senator, the concept provides for us to take the 
product of this information and provide what I call decision 
quality data to the commander on the ground, so that commander 
can take full advantage of these digital interfaces to get 
rapid decision quality data to decide whether you're going to 
strike the targets or make the next move or not, sensitive to 
the rules of engagement and the other sensitivities that go 
along with modern warfare. We're trying to advance this notion 
as the second phase of our transformation in the United States 
Air Force, and our contribution to joint transformation with 
the other services.
    Senator Carnahan. If the B-2 will be escorted by F-22s, it 
seems to me that the B-2 will require the enhancement of its 
communication ability to make it more interoperable with other 
aircraft. I understand that some of the upgrades that were cut 
in the 2002 budget would have honed these capabilities for the 
B-2.
    General Jumper. Senator, you're exactly right.
    Senator Carnahan. Would you explain the importance of 
upgrading the B-2s communications?
    General Jumper. It is on our top unfunded priority list to 
try and get those back. We fully intend to re-address this as 
we prepare the 2004 Program Objective Memorandum (POM). But in 
the trade-offs that had to be made we opted for the lethality 
first, and that's the incorporation of the new generation of 
500 pound precision-guided munitions that will allow us to 
carry 80 on the airplane. These are tough tradeoffs, Senator, 
and we were forced to make them. I would hope to be able to 
come over and consult with you on ways to deal with this 
problem.
    Senator Carnahan. Thank you Mr. Chairman.
    Chairman Levin. Thank you Senator Carnahan. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Three or four 
times you've had to use that term ``tough tradeoffs.'' I don't 
want those tradeoffs to be that tough. I don't think that we're 
adequately funded to take care of all of our needs. These 
things we're trading off are really critical. I'm glad Senator 
Carnahan brought up this thing on the upgrades, the Link-16. If 
we're going to fully utilize the opportunity that we have we're 
going to have to get it upgraded and get it in proper order.
    Back when I was important, before the Democrats took 
control of the United States Senate, I was the chairman of the 
Senate Armed Services Subcommittee on Readiness and Management 
Support for about 5 years. I was able to visit virtually every 
installation of all the services around the world, or at least 
I tried to. I remember so well when I was looking at some of 
these problems that have to do with pilot retention and other 
things too; when out in the desert we had dropped from six Red 
Flag exercises down to four. Now, I'd like to hear your 
professional opinion, because I have heard this from the 
pilots. A lot of the things I've heard from the pilots you 
don't hear in these hearings up here. But in terms of their 
being able to keep their skills honed, do you think we should 
get back up to six Red Flag exercises?
    General Jumper. Senator, I do. The biggest advantage we 
have, and you and I have discussed this before, is our edge in 
training. Every air force in the world out there that could 
contend against us in some way is trying to figure out a way to 
deal with and beat the United States Air Force. This training 
edge that we have is one that we absolutely have to keep. It's 
absolutely precious to us. By the way, we are still the best 
trained air force in the world, make no mistake about it.
    Senator Inhofe. This is when you use our pilots flying 
their aircraft, their pilots flying our aircraft, we beat them 
every time, in spite of problems we're having with 
modernization?
    General Jumper. The good news is when we go up against 
these aircraft it's their pilots flying their airplanes and 
that's what gives us the advantage. I agree with you 
completely, Senator, we should get back up to six Red Flag 
exercises.
    Senator Inhofe. OK, Senator Carnahan brought up the Global 
Strike Taskforce. Is there anything more that you want to say 
about that?
    General Jumper. No sir. I think I've explained it and our 
efforts to try to--the main thing I want to emphasize is our 
efforts to try and coordinate this. It's an operational concept 
with the other services. This is not just the United States Air 
Force.
    Senator Inhofe. OK. Getting back now to retention, I think 
Senator Cleland is right. It costs so much less to retain than 
to retrain. There are so many villains out there. It's not all 
one thing. They like to say the economy's good and the airlines 
are attracting these people. But it has been my experience that 
most of the pilots that we have in the Air Force and the Navy 
are there because they want to be the best, they want to defend 
their country. There's a deep sense of patriotism and pride in 
what they do. I remember one time a pilot when I guess it was 
at Corpus Christi Naval Air Station, he stood up and he said, 
``Well, this country has lost its sense of mission,'' thinking 
about some of these deployments that they didn't feel really 
related to their skills and their abilities. The programs that 
we have, the SRB, the Selective Re-enlistment Bonuses, and the 
pilot bonuses, are they working? Are they helping? How much are 
they helping?
    General Jumper. Sir, on the pilot side it's too early to 
tell. But yes, they are indeed helping. On the enlisted side we 
for the first time this year will meet our goal in the first 
term retention.
    Senator Inhofe. That's 55.6 percent?
    General Jumper. Fifty-five percent. The 75 percent and the 
95 percent we attempt to get in the second term in the career. 
We're still going to be two or three or four percentage points 
short. But it's improving so I'm encouraged in this regard. I 
will tell you, Senator, there's another category of people out 
there that make it very encouraging. In fiscal year 2001 we 
expect to get 1,000 airmen back into the service who got out 
over the last few years. I tell the story of a young sergeant I 
met in Kuwait who told me the story of going out to work for a 
video graphics firm. It's exactly the job he wanted. He went 
out to California. He was making twice as much money as he had 
when he left. When he arrived he determined that the people he 
was working with were only staying as long as it took to be 
offered a higher salary, and then going to the next job. They 
didn't want to make friends. They didn't want the comraderie 
that he was used to in the Air Force. He said, ``I couldn't get 
back in the Air Force quick enough.'' We see more and more of 
that, Senator, as time goes on. I'm encouraged by these things, 
but we are not over the hill yet.
    Senator Inhofe. That would be interesting to see how that 
factors in statistically, because I'd like to believe that too. 
I think if they see that we're going to get back into a more 
intensified training and the things that originally attracted 
them to the services, perhaps that will have that same effect 
that you're mentioning.
    General Jumper. If you can indulge me for just another 
second Senator, when you go to Lackland Air Force Base at our 
basic training, you'll see the same scene at every graduation. 
You'll see some mother or father standing there being shaken by 
one of these young airmen saying, ``Yes mom, it is me.'' They 
don't recognize their child after the basic training experience 
because they come out, as these young Americans I described 
before, no less patriotic, committed, dedicated, than any 
generation of Americans that ever served.
    Senator Inhofe. I know that's true. Well in this day and 
age the necessity of dealing, of training and fighting wars in 
an integrated way with the other services, as well as the 
allied environment, what types of efforts are underway to 
ensure that the Air Force is able to successfully integrate 
with the other services and nations, and what role would the 
Joint Strike Fighter play in this?
    General Jumper. The Joint Strike Fighter brings stealth, 
persistent stealth, over the battlefield for the first time. 
This is necessary, as opposed to the targets that I described 
before, the Global Strike Taskforce, those are largely fixed 
targets that you use to what I call kick down the door to 
create the conditions for access. The Joint Strike Fighter is 
the persistence force. That's the one that stays over the 
battlefield to do things like close air support when the troops 
come ashore, time critical targeting, and to handle those 
critical targets that emerge very quickly that you can't deal 
with with a bomber that's 3,000 miles away. So we think that 
the Joint Strike Fighter is also critical to our future 
capability. We look forward to that.
    Now as far as the allies and the other services go, the 
alliance part is the toughest because as we go through this 
horizontal integration of space assets, and as I described 
before, much of that is classified and not available, not 
accessible to our allies. We've got to work around this and 
part of our effort with Global Strike Taskforce is to create 
this Air Operations Center structure that puts the 
classification at the proper level for us to share with our 
allies. This is going to be a big part, because when we go to 
war we go to war as a coalition or we go to war as an alliance. 
This happened throughout the decade of the 1990s and we've got 
to be ready for it. We're working on that very hard, Senator.
    Senator Inhofe. That reminds me of another thing. During 
Kosovo, and during the target selection process, on many 
occasions I was up at Ramstein when they were going through 
this thing, and these target decisions by committees is 
something that really bothered me. I'm hoping if we get 
ourselves in a mess like that again that we can go in with the 
understanding, with our allies, if you want us in we've got to 
make these decisions--some way to streamline that process. My 
time has expired and I just will say to you I look forward to 
and it will be my honor to be serving with you in your new 
capacity.
    General Jumper. Thank you, Senator.
    Chairman Levin. Thank you, Senator Inhofe. The 1999 White 
Paper on the long-range bombers, which has been referred to, 
emphasized the role that bombers are going to play in the 
Aerospace Expeditionary Force as follows: ``Long-range bombers 
with their global range, massive firepower, and stealth 
integrate with air superiority, support, and other strike 
aircraft to form a synergistic force that is at the core of a 
lean, lethal, tailored, and rapidly responsive AEF, as was 
recently demonstrated in Operation Desert Fox.'' Now the report 
assumes, I believe, that bombers are going to operate mainly 
from the United States. Are operations from the United States 
consistent with assumptions which are made about the operating 
life of the bombers?
    General Jumper. Mr. Chairman, if you'll allow me, our 
concept calls actually for forward deployed bomber assets in 
these contingencies, at our bases in England and Diego Garcia 
and other places that are specified as bomber bed-down bases. 
We want to include the B-2 in this forward deployment 
capability and we are now, as you're aware sir, developing a 
shelter that will allow us to do the stealth maintenance on the 
B-2 in forward locations. When we do put these bombers forward 
we get greater sortie rates out of them and they're much more 
useful to us. When we have to, for surprise--strategic 
surprise--we can operate these airplanes from the continental 
United States. You saw us do this in Operation Allied Force 
where the B-2s flew as long as 17 hours one way, 34 hours round 
trip in some cases, 3 days on an airplane essentially to go 
back and forth.
    Chairman Levin. Without the capability of retargeting.
    General Jumper. Yes sir. Well, we developed actually during 
the course of the battle. I was frustrated with our inability 
to retarget, so I went to Whiteman Air Force Base myself and 
sat down with the young captains and we figured out how to do 
it. We created a very meager, flexible targeting capability 
which is exactly the type we're trying to expand, as was 
explained earlier, and become more sophisticated.
    Chairman Levin. That's helpful. Is the assumption about the 
life of the bombers then that there will be these forward 
deployments?
    General Jumper. Yes sir, indeed.
    Chairman Levin. Could you give us your views on the 
appropriate role for space assets and the use of space in the 
future?
    General Jumper. Yes sir. As I said before, I think our 
greatest leverage lies in space and we are familiar with 
Secretary Rumsfeld's work with the Space Commission and we 
embrace the findings of that commission. I know Secretary Roche 
and General Ryan are putting those provisions into effect. My 
perspective as the commander of Air Combat Command has been 
from the perspective of the impact on the battlefield. I look 
at systems like SBIRS and other ISR platforms that are in 
space, and see the benefit of being able to take the high 
ground of space to always fill in the blanks for our other ISR 
assets.
    I also see the threat emerging, the threat that allows you 
to take your Visa card and dial up an address on the Internet 
and get a picture, almost instantly, of anywhere you want on 
the Earth. This is going to impact our ability to provide 
strategic surprise. We're going to have to learn to deal with 
this problem in our space control mission in the future. 
Because we won't be able to hide our intent to deploy into 
airfields, or the fleet hovering out there over the horizon, or 
Norm Schwartzkopf's left hook in Operation Desert Storm. We're 
going to have to be able to deal with this in the future. Mr. 
Chairman, I have not been deeply involved in this in my 
position at Air Combat Command, but if I am confirmed this will 
be a subject of primary concern for me in the future.
    Chairman Levin. Senator Warner has led an initiative in the 
committee to increase the contribution of unmanned systems to 
our operating forces with the goal of contributing one third of 
our operational deep strike aircraft capability by the year 
2010. I think there's wide-spread support for that approach in 
this committee. In order to achieve that objective the Defense 
Department will have to do an awful lot more in the next 4 
years to position the Air Force and the other services to 
achieve that goal. Can you tell us your reaction to that goal 
and if you support it? Even if you don't, assuming the goal is 
adopted by the civilian authorities, how you would achieve that 
goal? What steps would you take?
    General Jumper. Mr. Chairman, I'm the guy who's supposed to 
fear UAVs the most. I'm the white-scarf fighter pilot that 
everybody says hates UAVs. As you may be aware, Mr. Chairman, 
I've worked personally very hard to accelerate the Global Hawk. 
I'm the guy who had us install Hellfire missiles on the 
Predator UAV, and we've tested over a dozen shots of the 
Hellfire missile off the Predator.
    I do not fear UAVs, especially the UCAV which promises to 
give us great leverage in the suppression of enemy air defenses 
with its stealth capabilities. I would like personally to 
pursue the marriage of the UCAV with directed energy weapons to 
see if this promising technology would combine well with UCAV 
to pay off, which I think it will. I don't know, Mr. Chairman, 
if the goal of one-third is correct or not. We have to work 
very hard on the concept of operations to make sure that we 
don't disturb other necessary elements of our readiness.
    For instance, if the concept for UCAV is to put them into 
boxes and load them aboard C-5s or C-17s, we've got to make 
sure that the balance of airlift is proper. We have to make 
sure that when we get there, if you have to reassemble them and 
then test fly them, that we don't then jeopardize our ability 
to rapidly react by having that requirement at the other end. 
If we decide to fly them across the ocean we have to work on 
things like automatic air refueling and ways to get through 
airspace, etcetera. These are things that we have to work on.
    None of these are insurmountable, but we have to make sure 
we've got the concept of operations correct, along with our 
commitment. But, Mr. Chairman, I hope I have demonstrated 
personally my commitment to UAVs. I'm committed, if I'm 
confirmed, you can count on the fact that commitment will 
continue.
    Chairman Levin. That's a very thoughtful answer and you are 
extraordinarily well-prepared for the job to which you will be 
hopefully promptly confirmed. We again thank you for your 
service to this Nation, for your future service. We thank your 
family. We will hope to get your nomination acted upon soon.
    General Jumper. Yes sir.
    Chairman Levin. We'll see if we can't get this confirmed 
just as quickly as humanly possible around here. We will stand 
adjourned with that optimistic note.
    General Jumper. Thank you, Mr. Chairman.
    [Whereupon, at 4:40 p.m., the committee adjourned.]

    [Prepared questions submitted to Gen. John P. Jumper by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                                ------                                

                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. My experience has shown that these reforms have been 
institutionalized and made part of the daily operations, oversight, and 
management of the Department of Defense in general and the U.S. Air 
Force in particular. I am aware that the sweeping changes produced by 
Goldwater-Nichols require continued diligence to ensure full compliance 
with the intent of the legislation.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Goldwater-Nichols has been remarkably successful in getting 
the Services to work together as a Joint Team. For a decade and a half 
now, we've been a much more effective instrument of national security 
policy due, in part to the clearly defined position and authority of 
the Chairman, Vice Chairman, and combatant commanders.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. Almost 15 years of experience under Goldwater-Nichols has 
meant significant changes in the way the Defense Department operates. I 
am certain that legislative changes could provide further improvements. 
However, I would prefer reserving judgment on this until after I have 
studied any specific proposals and acquired some experience as a member 
of the JCS. At that time, I would be pleased to share my thoughts with 
the committee as appropriate.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Air Force Chief of Staff?
    Answer. The Chief of Staff of the Air Force organizes, trains, and 
equips America's Air Force to best provide the Secretary of Defense and 
the combatant Commanders in Chief the forces they need to accomplish 
our national security objectives.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. It has been my distinct honor to serve on Active Duty in 
the United States Air Force for more than 35 years. During this time, I 
have been privileged to serve at every level of command, culminating 
with my current duties at Air Combat Command, overseeing all combat 
airpower based in the continental United States. My experience in the 
Pentagon as Deputy Chief of Staff for Air and Space Operations, and my 
earlier tours as Senior Military Assistant to the Secretary of Defense 
and as a Deputy Director for Pol-Mil Affairs on the Joint Staff 
provided me with a firm foundation in military operations at the 
tactical, strategic, and operational levels. My tour of duty as 
Commander, U.S. Air Forces in Europe, during the Kosovo conflict was 
particularly crucial in crystallizing my views on the effective 
employment of airpower in a Joint and Allied effort. My background 
provides extremely good preparation for the critical duties of Air 
Force Chief of Staff.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Air Force Chief of 
Staff?
    Answer. A complete understanding of current Air Force and Defense 
Department issues is essential to my ability to discharge these 
important duties. Since my nomination, I have taken action to enhance 
my knowledge of such issues, and I pledge to diligently continue to 
study the broad national security issues that will require my attention 
if I am confirmed.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. I believe Secretary Roche will expect me to continue the 
efforts and initiatives of Gen Ryan in enhancing the readiness and 
resources of the Air Force, and to focus on the re-capitalization 
needed for our aging aircraft fleet. I also believe Secretary Roche 
will expect me to engage in the Quadrennial Defense Review discussions 
that will shape our strategy and force structure for the next decade. I 
pledge to work these issues alongside my colleagues in the other 
services.
    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. I will work closely with the other members of the Joint 
Chiefs of Staff to provide the best possible military advice for the 
Secretary of Defense. As Chief of Staff, I will diligently work to 
ensure the readiness of air forces to accomplish the aerospace side of 
the Secretary's Defense Planning Guidance.
    Question. The Secretary of the Air Force.
    Answer. Americans are rightfully proud to have the world's 
preeminent aerospace force. I will work very closely with the Secretary 
of the Air Force to ensure we meet our Air Force Vision: Global 
Vigilance, Reach, and Power.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. I will assist the Chairman in formulating military advice 
as a member of the JCS. I will diligently advise the CJCS on the 
capabilities of the Air Force and its preparation to support military 
operations by combatant commands. I will advise the President, NSC, and 
Secretary of Defense on matters within my expertise as required.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. I will assist the Vice Chairman to execute duties 
prescribed in statute and otherwise as directed by the Chairman or 
Secretary of Defense. I will advise the Vice Chairman of the 
capabilities and future requirements of the Air Force. I will also 
assist the Vice Chairman when he or she performs the duties of the 
Chairman because of a vacancy in the Office of the Chairman or in the 
absence or disability of the CJCS.
    Question. The Chiefs of the other services.
    Answer. I will cooperate and work closely with the Chiefs of our 
other services to help them carry out their responsibilities as members 
of the Joint Chiefs of Staff. I will seek to encourage synchronization 
of service capabilities to better produce the effects desired by our 
CINCs.
    Question. The Air Force Vice Chief of Staff.
    Answer. Like most commanders, I view my Vice as the person who has 
the insight and confidence to tell me when I'm wrong. I'll rely on my 
Vice for candid, resourceful counsel on the multitude of complex issues 
we face. I'll also expect my Vice to complement my efforts in 
communicating key Air Force issues.
    Question. The Commander in Chief, U.S. Space Command.
    Answer. I intend to support the efforts of CINCUSSPACECOM, to 
ensure America's interests are both protected and advanced in space. 
Space offers tremendous potential for our country and I will work very 
closely with my colleagues in U.S. Space Command as we implement the 
recommendations of the Space Commission.
    Question. The Commander in Chief, U.S. Transportation Command.
    Answer. I view TRANSCOM as absolutely indispensable to our Air 
Force, from the way it moves a young airman's family between duty 
stations, to its ability to project our forces into harm's way with the 
sustainment necessary to protect our people and win the fight. I'll 
work with the CINC to improve our ability to do these things.
    Question. The Commander in Chief, U.S. Strategic Command.
    Answer. I will keep the Commander in Chief U.S. Strategic Command 
advised of the readiness of the air forces to support Strategic Command 
operations.
    Question. The Commander in Chief, U.S. Special Operations Command.
    Answer. Clearly an area of critical importance, I'll ensure that 
the Air Force is providing the CINC with the right equipment and fully 
trained people to execute these demanding missions. As with the other 
officials named above, a forthright dialogue is the way to get that 
done.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Air Force Chief of Staff?
    Answer. As we continue to refine our National Security Strategy and 
National Military Strategy our Expeditionary Aerospace Forces (EAFs) 
must continue to evolve to include the robusting of our low density 
high demand assets. Our greatest challenge remains the requirement to 
advance new capabilities while maintaining the robust readiness 
required to meet day-to-day warfighter requirements. It is imperative 
we develop our Global Strike Task Force (GSTF), a kick-down-the-door 
force that will assure access and aerospace dominance for all our joint 
forces, yet our current aging airframes must be sustained at a level 
enabling rapid response to any present threat. We will continue to 
address the challenge of retaining our skilled personnel, as well as 
meeting the needs of our deteriorating base infrastructure.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Day-to-day readiness of our aging aircraft fleet depends on 
continued robust funding of spare parts, aggressive efforts to enhance 
retention of skilled personnel, and engaged unit leadership on our 
flight lines. I plan on focusing much of my efforts on these three 
essentials. Moreover, I plan to actively pursue implementation of the 
Global Strike Task Force concept alongside my fellow service chiefs so 
as to provide the Department a compelling joint capability that 
incorporates the key lessons of the 1990s and addresses the emerging 
threat.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Air Force Chief of Staff?
    Answer. Because the Chief of Staff is primarily responsible for 
providing properly trained and equipped forces to the Combatant 
Commanders, the most serious problem facing us today is adequate 
resources to accomplish that task. No matter how you slice it, the Air 
Force needs more funding to provide the essential tools to our 
warfighting commanders. Without recapitalization of our aircraft fleet, 
we face a downward spiral in capability that will affect the options 
available to the National Command Authority. Furthermore, without 
recapitalization we can never achieve the savings, both in dollars and 
American lives that could be realized through the completion of the AEF 
concept and the implementation of capabilities like the Global Strike 
Task Force.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I recognize that fiscal realities will constrain the funds 
available to us and I'm prepared to aggressively manage the funding 
entrusted to the Air Force to ensure we get the absolute maximum in 
combat power for every dollar of the taxpayer's money we spend. The Air 
Staff cannot do this alone, however. I will tell subordinate 
commanders, at all levels, that I consider sound fiscal management an 
integrity issue. We can accept nothing less from those who spend the 
funds. The immediate timeline for solutions has already been dictated 
by the budgeting process--we already know what we can buy and when. 
Obviously, I would hope to affect that process in the long term by 
continuing to keep this administration and Congress informed of our 
needs.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues, which must be addressed by the Air Force Chief of 
Staff?
    Answer. I intend to follow the objectives put forth by Secretary 
Rumsfeld and Secretary Roche that include transformation, readiness, 
retention, and recapitalization.
    Transformation, because the Air Force is inherently 
transformational--constantly adapting ourselves to new threats and 
leveraging new technology in order to posture ourselves to face the 
challenges of an uncertain future.
    Readiness, because it is the heart and soul of our ability to 
perform our mission on a day-to-day basis, and is the hallmark of our 
combat capability.
    Retention, because we can only be successful through the energy and 
dedication of skilled and motivated personnel.
    Recapitalization, because we must recover from a decade-long 
spending hiatus to provide the tools our Airmen need to fly, fight and 
win.
                     strategic airlift requirements
    Question. What is the biggest challenge for the Air Force in 
meeting strategic airlift requirements and what would you do, if 
confirmed as Chief of Staff of the Air Force, to meet that challenge?
    Answer. The largest challenge remains the reliability of the C-5 
Fleet and the modernization of this fleet. If confirmed, I will place a 
strong emphasis on the AFs 2-phase program to modernize the C-5. Phase 
I is an Avionics Modernization Program that replaces unreliable and 
unsupportable avionics components. Phase II is a reliability and re-
engining program providing for commercial replacement of the aircraft's 
powerplants and the replacement of ``bad actor'' hydraulic, landing 
gear, and fuel system components among others. The resulting goal of 
this program is a 75 percent mission-capable rate for the C-5 fleet.
    Question. The Air Force has completed, but has not made available 
to the committee, the Outsize/Oversize Analysis of Alternatives for 
strategic lift aircraft. That analysis is required for Congress to 
evaluate possible alternatives for providing strategic airlift.
    If confirmed, when do you intend to forward that analysis to 
Congress?
    Answer. The Outsize/Oversize Analysis of Alternatives is currently 
in final coordination with AMC/CC. We intend to forward the study to 
Congress following the OSD Strategic Review and QDR.
                      mobility requirements study
    Question. What priority would you place on carrying out the 
strategic airlift recommendations of the Mobility Requirements Study 
(MRS-05)?
    Answer. MRS-05 provided the most in-depth analysis of airlift 
requirements to date; CJCS, Service Chiefs, and CINCs agreed to the 
airlift requirement of 54.5 MTM/D. However, MRS-05 did not resolve the 
fleet mix. The Outsize/Oversize Analysis of Alternatives (O/O AoA), the 
OSD Strategic Review, and the QDR will address the most effective and 
fiscally responsible fleet mix. The AF is awaiting firm follow-on 
requirements as well as requirements derived from MRS-05, O/O AoA, and 
the QDR before negotiating follow-on contracts.
                            strategic forces
    Question. Do you believe that the United States should retain a 
strategic Triad of offensive nuclear forces for deterrent purposes?
    Answer. Yes.
    Question. Do you believe the current Air Force bomber roadmap is 
sufficient to sustain a bomber force to perform its strategic nuclear 
missions?
    Answer. Yes, the Next Generation Bomber Study demonstrates how 
modernization of the bomber fleet will provide new bomber equivalent 
capability at significantly less cost. However, as a part of the DOD's 
National Military Strategy Review all force structure and modernization 
priorities are being re-evaluated. The Air Force needs a minimum of 157 
bombers (B-52, B-1, B-2) at their full capability to employ a variety 
of weapons across the full spectrum of conflict.
          intelligence, surveillance, and reconnaissance (isr)
    Question. On a recurring basis, regional Commanders in Chief 
(CINCs), express significant concern about the responsiveness and 
availability of intelligence, surveillance and reconnaissance (ISR) 
assets to support their respective theaters, both in peacetime and 
during conflict. A review of recent budgets indicates relatively modest 
investment in the airborne ISR assets CINCs are most concerned about, 
compared to the large investment in national level ISR assets.
    In your view, is the investment strategy in theater level and 
national level ISR assets appropriately balanced?
    Answer. Yes. There are important modernization and acquisition 
priorities for both theater- and national-level ISR assets. If 
confirmed, I will work to ensure that the needs of the regional CINCs 
are appropriately reflected in the Air Force budget.
    Question. In view of the risks associated with manned 
reconnaissance, as pointed out by the recent EP-3 incident, what is 
your vision for ISR in the future, both manned and unmanned?
    Answer. We will continue to move forward with manned, unmanned and 
space reconnaissance assets, but will look to better integrate the 
information collected by horizontal integration of all of these assets. 
This combination of manned, unmanned and space platforms will talk 
together at the digital level to resolve ambiguities of target location 
and target identification. Together, they will provide the right 
information to predict the enemy's intentions and successfully execute 
air operations to defend national interests.
                         information dominance
    Question. As you are well aware, Joint Vision 2020 identifies 
information dominance as a key enabler of mission success. This is 
especially true for precision strike operations, wherein full 
situational awareness and assured communications are critical. 
Information operations and information assurance assume key roles in 
current and future warfare.
    What is your view of the role of information operations in current 
and future military operations?
    Answer. Information Operations personnel are part of our new 
warrior class, an integral arm of the Air Force, and information 
operations in synchronization with traditional kinetic means, will 
remain a critical element of our strategy to fight and win future 
conflicts.
    Question. Are you satisfied with the unity of effort within the Air 
Force and within the Department of Defense towards integrating 
information operations into overall military operations?
    Answer. The Department of Defense has done an excellent job of 
focusing on the discipline of Information Operations. As technology 
develops and there are more available, reliable means of 
communications, there will be new opportunities and challenges faced by 
DOD. The Air Force will continue to work with all DOD agencies to seek 
out better ways for exploiting those opportunities and protecting our 
systems from adversary countries' efforts to do the same. In 
particular, we must bring IO to the operational and tactical levels of 
war.
                         joint response forces
    Question. A recurring theme in the on-going strategic review and 
Quadrennial Defense Review has been the need for standing joint task 
forces or joint response forces that habitually train together and can 
quickly respond to support contingencies around the world.
    Do you believe that there is a need for such joint response forces?
    Answer. The concept of joint response forces is still in proposal 
stage and I have only limited exposure to the details of the proposal. 
I'm certainly willing to study any concrete proposal along these lines 
or to offer my views on how best to proceed. I believe that the current 
Title 10 system, refined under Goldwater-Nichols, has proven its worth 
and yielded real success. The Services operate effectively to provide 
trained, equipped, and ready forces for the specific needs of the 
combatant commanders. There may be a place for a standing Joint Task 
Force (or Joint Response Force) Headquarters, consisting of command and 
planning elements organized under a warfighting CINC and exercised 
jointly by USCINCJFCOM. However, that requires further study and 
coordination with the services.
    Question. What implications does this concept have for the way the 
Air Force is currently organized, including strike assets, global 
response assets, and ISR assets?
    Answer. The AEF provides the current Air Force construct for 
organizing and presenting forces to combatant commanders. Air 
Expeditionary Force (AEF) packages represent capabilities designed to 
produce the effects every CINC calls for while helping us better manage 
the tempo of our personnel and equipment. If a new joint response force 
concept were created, the Air Force would perform our role within the 
existing EAF construct.
    Question. What improvements are needed in current Air Force and 
joint command and control systems to support such a concept?
    Answer. We are very focused on development of a horizontally-
integrated Command and Control, Intelligence, Surveillance, and 
Reconnaissance (C\2\ISR) system that will link together space, manned, 
and unmanned platforms using machine-level conversations to produce 
decision quality information for commanders and target quality 
information for cockpits. This system, by its very nature, will include 
and integrate all service C\2\ISR capabilities. Such a system would 
also enhance the effectiveness of a Joint Response Force if it were to 
come to pass.
                       officer management issues
    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest moral and ethical 
values.
    Do you believe the officer corps has confidence in the integrity of 
the officer promotion system in the Air Force?
    Answer. Yes.
    Question. What role do you expect the Air Force Chief of Staff to 
play in the officer promotion system?
    Answer. Title 10 calls for the SECAF to oversee the officer 
promotion process and govern all promotion board actions. I will advise 
the secretary as he seeks to ensure only the highest caliber 
individuals are nominated and promoted.
    Question. What role do you expect the Air Force Chief of Staff to 
play in the general officer management and nomination process?
    Answer. I will engage in continuous collaboration with the 
secretary on the management and nomination of general officers with the 
goal to ensure only those officers who possess the highest standards 
will be nominated. U.S.C. Title 10 guides the SecAF and CSAF in the 
management of general officers, which I intend to use as a starting 
point for guaranteeing that USAF senior leaders remain the best 
possible officers in the USAF.
    Question. If confirmed, what steps will you take to ensure that 
only the most highly qualified officers are nominated for promotion to 
general and flag officer rank?
    Answer. The Air Force has already taken several important steps to 
ensure our system is fair and effective. Throughout the last decade, 
revisions in our promotion system have withstood scrutiny from both 
outside and inside the Air Force. I will make certain my predecessors' 
efforts to improve the promotion system remain viable and I will 
provide the best possible advice to the SecAF as part of my U.S.C. 
Title 10 responsibilities. I will work this particular issue 
energetically, and will help guarantee my staff and that of the 
secretary maintains an open dialogue with this committee on these 
critical general officer matters.
                        protected communications
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. I strongly support the statutory prohibition on taking 
retaliatory personnel actions against those who make protected 
communications. I believe any such retaliation strikes at the heart of 
honest discourse that must occur between airmen and their leaders, 
inside and outside the chain of command. In Air Combat Command, my 
Inspector General has made investigation of all IG complaints, 
including reprisal, a priority.
    Question. If confirmed, what actions will you take to ensure that 
senior Air Force leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. If I am confirmed, I will do three things to ensure Air 
Force members remain confident they will be protected when they make 
these types of communications: (1) I'll ensure every airman and 
civilian member of the Air Force understands their right to make these 
statements and to be afforded the protections of the statute, where 
necessary; (2) I'll devote the needed resources to permit the Inspector 
General to properly investigate allegations of reprisal whenever they 
occur; and (3) I'll stress to commanders the importance of acting 
appropriately to punish those found to have engaged in reprisal.
                            operating tempo
    Question. The services have been very concerned in recent years 
about the impact of the pace of operations, or ``ops-tempo,'' on the 
quality of life of our people in uniform and specifically on their 
willingness to reenlist.
    What steps do you plan to take to address the Air Force opstempo 
concerns?
    Answer. We are stretched too thin and are wearing people and 
equipment out. Sustained operations tempo is a major factor in 
recruiting and retention efforts. It has taken its toll on the force--
which is still deploying over 3 times more often despite the drawdown--
a total force now 67 percent (AD now 60 percent) of its former size. 
High ops-tempo also compounds challenges of an aging fleet, by putting 
additional stresses on airframes that already require extensive 
maintenance to maintain mission capable status. High ops-tempo, 
downsizing, and other factors have placed us in a position of doing 
more with less. The Air Reserve component is integral to reducing 
Active Duty ops-tempo, however, high operations rates also challenges 
ARC recruiting and retention. The Expeditionary Aerospace Force (EAF) 
brings much needed predictability and stability, incorporates total 
force, and provides for a reconstitution period, providing tools to 
better manage the force. The EAF construct determines how the Air Force 
is organized, trained and equipped, and provides the tools to better 
manage the force. Additionally, we are working with ANG and AFR to 
better manage the tempo of our operations.
                        recruiting and retention
    Question. The Air Force achieved its recruiting goal for Active 
Duty personnel for fiscal year 2000 and projects that it will meet its 
Fiscal Year 2001 Active Duty recruiting objectives. The Air Force 
Reserve missed its fiscal year 2000 recruiting goal, and it does not 
appear that the Air National Guard will achieve its fiscal year 2001 
goal.
    What steps will you take, if confirmed, to assist the Air Force in 
meeting its recruiting and retention goals?
    Answer. Your continuing support of our recruiting initiatives has 
helped us meet our recruiting goals without lowering our standards. 
That support included bonuses, adjusted pay initiatives, retirement 
reforms, and improvements in medical benefits, which helped us achieve 
our fiscal year 2000 recruiting goals, and has kept us on track again 
this year. We still need your help to attract the highest quality 
individuals into the military service. If confirmed, I will 
aggressively work with the appropriate agencies to ensure the AF 
continues to meet the recruitment goal, both in terms of quality and 
quantity.
    In an effort to meet our recruiting goals, the Air Force held a 
comprehensive review of recruiting and accessions processes. One of the 
most important initiatives from this review was to increase our 
recruiter force. We increased the number of recruiter authorizations 
from 1,209 to 1,450 in fiscal year 2000, and we project 1,650 recruiter 
authorizations by the end of 2001. The Active Duty drawdown has also 
created an additional recruiting challenge for our Guard and Reserve 
components. As a result, the Air Force Reserve is increasing its 
recruiting force in fiscal year 2001 by 50 recruiters (to 564), and the 
Air National Guard is adding 65 recruiters (to 413) over the next 3 
years.
    Furthermore, we launched a multi-faceted marketing campaign, 
including NASCAR, television and movie theater advertising. We are 
synchronizing our efforts through a newly established marketing and 
advertising office. Our ads depict the teamwork, dedication, and 
technological sophistication that characterize the Air Force. The Air 
Force Reserve and Air National Guard also launched a national campaign 
that includes television, radio, and outdoor advertisements. We also 
continue to emphasize to all our Air Force people that ``We Are All 
Recruiters.'' With an emphasis on publicity and our own people telling 
the Air Force story, we broaden the Nation's awareness of the Air 
Force.
    The Air Force is also expanding accession incentives. Enhanced 
enlistment bonuses are focused on 85 critical skills, which have 
resulted in and increase in 6-year enlistment from 11 percent in fiscal 
year 1998 to 55 percent in fiscal year 2000. In January of this year 
the AF Recruiting Service and the AF Directorate of Personnel began 
evaluating ``signing bonuses'' of up to $5,000 for Mechanical, 
Electrical and other designated skills to help meet recruiting goals 
during the hard-to-recruit months of February through May. We are 
considering several initiatives to attract more Reserve Officer 
Training Corps (ROTC) candidates, including offering cadets contracts 
after their freshman year rather than waiting until the end of their 
sophomore year, as well as recommending legislation to permit an 
officer accession bonus. We actively pursue the talent in our enlisted 
force through enlisted commissioning opportunities--we have nearly 
quadrupled the number of prior service commissioning accessions from 
169 in fiscal year 1998 to 647 so far in fiscal year 2001. This program 
offers a great incentive for people who want to continue their Air 
Force career.
    Question. Current projections indicate that the Air Force will not 
meet its 2nd- and 3rd-term retention goals and will miss its required 
end strength by 4,100.
    Why do you believe the Air Force is having trouble retaining 2nd- 
and 3rd-term airmen?
    Answer. The Air Force is recovering from several years of low 
retention rates from first-term airmen through career airmen. With your 
support we have extended reenlistment bonuses, increased housing 
allowances, and expanded the Montgomery GI Bill benefits, helping us to 
successfully turn the corner on first-term enlisted airmen retention. 
Part of the trouble with retaining second-term and career airmen is 
they have been overtasked year after year; collectively changing their 
mind to stay in the AF is more difficult than convincing a 1st-term 
airmen to give us a second chance. These airmen are the backbone of our 
enlisted force and they endure the increased load to train our new 
accessions plus carry out the day-to-day work required of experienced 
technicians. The AF increased total accessions to offset poor retention 
in an effort to meet end-strength goals. AF apprentice (3-level) 
manning is currently at 115 percent and journeyman (5-level) manning is 
at 80 percent. In the short-term, this significantly impacts our 
experience levels. Our journeyman, who make up the majority of 2nd-term 
reenlistments and a portion of the career reenlistment categories, are 
working hard to carry the load as we work to balance the experience 
within the force. If, however, we sustain our 1st-term reenlistment 
goal, these people will become tomorrow's experienced technicians and 
mentors, easing some of the experience inequities.
    Question. If confirmed, what steps would you take to address this 
problem?
    Answer. If confirmed, I will continue to fight against the key 
factors that cause low retention. These factors include wages, high 
operations tempo, quality of life issues, and leadership. The primary 
tool to mitigate low retention is the Selective Reenlistment Bonus, 
which offers a bonus to 76 percent of our enlisted skills. We continue 
to look for initiatives to improve retention. The AF held a Retention 
Summit composed of MAJCOM senior officer/enlisted representatives, AFPC 
and ANG reps--19 initiatives were approved, including Career Assistance 
Advisors, Patient Advocates, Retention Toolkit, enhanced Spousal 
Employment program and subsidized in-home childcare in support of 
extended hours. Four Red Team/Integrated Process Teams are now studying 
NCO Retraining, Enlisted Bonuses, Pay Structure and Montgomery GI Bill/
Tuition Assistance.
    Question. The Air Force has requested an end strength of 358,800 
personnel, an increase of 1,800 over the fiscal year 2001 authorized 
end strength of 357,000.
    Do you think the Air Force can achieve this increased end strength 
if it misses its fiscal year 2001 authorized end strength by more than 
4000 airmen?
    Answer. The requested end-strength is justified and we will 
increase accessions and improve our retention to meet our goals. People 
are our most vital resource, our most crucial readiness component. Our 
long-term goal is to stop the decline in end-strength and start growth 
to size the force to support increased operations tempo. The Air Force 
has undergone a 38 percent decrease in end strength since fiscal year 
1998. We base military end-strength needs on combat capability after 
rightsizing infrastructure, taking advantage of technology, 
reengineering functions, and competing non-military essential support 
functions. However, the number of peacekeeping missions, relief efforts 
and other military operations have steadily increased--driving the need 
to increase aircrews, maintainers and combat support. Also, updated 
manpower requirements models, driven by lessons learned from real-world 
operations, and stresses on the fleet due to aging aircraft and longer 
sortie durations, have resulted in increased manpower requirements.
    Question. The Air Force is having difficulty retaining officers 
with skills that are in high demand in the private sector. This 
includes pilots, scientists, engineers, and communications computer 
systems officers.
    If confirmed, what steps would you take to improve officer 
retention, particularly in these high demand areas?
    Answer. For pilots, increased production and longer Active Duty 
service commitments improve overall accessions and the average time a 
pilot remains on Active Duty. With your help, the Air Force 
significantly improved the Aviation Continuation Pay (ACP) program. For 
both our pilots and non-rated officers, our AEFs are helping to manage 
operations tempo, and recent Quality of Life improvements have removed 
some of the ``irritants'' that drive quality people to other jobs in 
the civilian economy. The cumulative effect of bonuses, the improved 
rhythm of our AEFs and improvements in quality of life help our total 
retention efforts.
                         quality of life issues
    Question. The Air Force has made significant strides toward 
improving the quality of life of its personnel. Despite these 
improvements there are still significant problems. By some estimates 
the Air Force must still revitalize over 58,000 housing units and an 
equally large number of barracks spaces.
    In this period of constrained resources, if confirmed, how would 
you weigh the allocation of resources to modernization of the Air Force 
and improving quality of life?
    Answer. People are our most vital resource. We must continue to 
maintain a balance between caring for our Airmen and paying for the 
tools needed for mission accomplishment. Your help over the years on 
pay, retirement and health care has been much appreciated. Quality of 
life issues are terribly important to attract and retain great people, 
but so is quality of service. Quality of service addresses the need to 
ensure we give our airmen the proper tools to do the tough jobs we ask 
them to do in places like Kuwait and Saudi Arabia and Turkey, in the 
no-fly zone enforcement where combat occurs on a daily basis. The same 
is true in the Balkans and Korea. Quality of service is not just about 
equipment with which they operate, but the ranges and hangers and 
buildings and shops in which we ask them to do their work. Therefore, I 
will work to ensure an effective balance between quality of life and 
modernization spending is maintained.
    Question. Should the Air Force allocate more resources toward 
improving quality of life for our forces deployed overseas? If so, why?
    Answer. Focus on quality of life is required for all of our forces, 
wherever they are stationed. As a result of my recent experience as 
COMUSAFE, I am aware of some the unique quality of life initiatives 
(COLA, DOD schools, etc.) that require particular attention. If 
confirmed I will ensure these special emphasis areas continue to be 
properly addressed.
    Question. In your view, can and should our allies provide more 
support toward improving the quality of life of our military personnel 
and their families deployed in Europe and the Far East?
    Answer. Our allies in the Far East and Europe already provide 
significant support to our forces overseas, and our regional commanders 
are actively engaged with our allied counterparts to ensure that level 
of support is sustained. Consideration of increased support should be 
addressed at policy level. If confirmed, I will work to keep 
appropriate policymakers informed of Air Force requirements for 
continued overseas support.
                       homosexual conduct policy
    Question. Do you support the current Department of Defense 
Homosexual Conduct Policy?
    Answer. Yes, I support the current policy.
    Question. If confirmed, do you plan to make any changes to the 
basic policy or its implementation? If so, what changes will you 
propose?
    Answer. No, I don't plan to make any changes if I am confirmed. The 
Air Force/JA monitors all cases other than those at Basic Military 
Training School (BMTS). BMTS separations are mostly voluntary. The AF 
system for monitoring these cases has been praised by DOD and there 
have been only a handful of violations of the policy within the Air 
Force over the past 5 years, and those have been characterized by a 
lack of familiarity with the policy rather than through malice or 
prejudice.
                  anthrax vaccine immunization program
    Question. DOD considers the biological agent anthrax to be the 
greatest biological weapon threat to our military force because it is 
highly lethal, easy to produce in large quantities, and remains viable 
over long periods of time. The anthrax vaccination program has been 
curtailed because of limited quantities of FDA approved vaccine.
    If confirmed, will you support and enforce the Anthrax Vaccine 
Immunization Program if DOD reinstates it?
    Answer. Yes.
    Question. How do you believe the Air Force should respond to 
service members who refuse to take the vaccine when ordered to do so?
    Answer. We should carefully educate our people on the very real 
danger posed by anthrax, and we should inform them of the safety and 
effectiveness of the vaccine. This is a force protection issue. We will 
continue to make experts available to answer any questions our service 
members have. In the past, almost everyone who has been fully informed 
of the threat and the protection afforded by the vaccine has chosen to 
be inoculated. For those few members who ultimately refuse an order to 
be vaccinated, appropriate disciplinary action should be considered. 
Any disciplinary response will be accomplished at the lowest 
appropriate level.
                           montgomery gi bill
    Question. Almost all new service members enroll in and contribute 
to the Montgomery GI Bill. Only about half use their benefits, and many 
do not use all of their entitlement. Many airmen say they would like to 
stay in the Service, but feel they have to leave so that they can 
provide for the education of their spouses and children. Some of these 
service members might stay in the service if they could transfer all or 
a part of their unused entitlement to GI Bill benefits to family 
members in return for a service commitment. Service Secretaries could 
use this retention tool selectively, just as they use reenlistment 
bonuses.
    Do you support this approach?
    Answer. Yes, I have always been a firm believer in the theory that 
we recruit the individual but retain the family. I see the transfer of 
educational benefits to family members as another way of helping us 
achieve our retention goals.
    Question. If confirmed, will you give serious consideration to how 
the Air Force can use the transfer of unused GI Bill benefits to family 
members as a retention tool?
    Answer. Yes, if confirmed I will work to package the transfer of 
these benefits in the manner that best meets the needs our airmen and 
our service's retention goals.
                       gender integrated training
    Question. Basic training, which may be the single most important 
phase of an individual's life in the military, is structured and 
defined differently by each Service.
    Do you believe the current DOD policy of allowing each of the 
services to establish its own policy for gender integration in Basic 
Training is effective?
    Answer. Yes. Each of the Services has its own needs when it comes 
to basic training. I know that a great deal of time and effort has been 
devoted to find the right answers for the Air Force and I expect that 
work to continue. The essential element for me is that we must train 
our newest members to handle the physical and psychological tests that 
await our Air Force--our training program must address that squarely 
and I'm dedicated to achieving that objective.
    Question. If confirmed, will you propose changes to Air Force 
policies? If so, what changes will you propose?
    Answer. I am sure that I will gain additional perspective on this 
issue if I am confirmed as Chief of Staff but, at present, there are no 
immediate changes I would make in our basic training policies.
                    priorities in tactical aviation
    Question. Over the past several years, the Senate Armed Services 
Committee has devoted substantial attention to the condition of 
tactical aviation. The committee concluded that there are persistent 
and serious problems, including aging of the aircraft fleet, shortages 
of certain types of tactical aircraft, and inefficient production 
rates. There have been continuing concerns about the affordability of 
the overall tactical aviation modernization effort, focusing on the 
three major programs, F-22, the F/A-18E/F, and the Joint Strike 
Fighter.
    Do you believe that all three tactical aviation modernization plans 
are affordable?
    If not, what criteria should Congress use in deciding which 
programs should go forward?
    Answer. Current fighters in the Air Force inventory are rapidly 
approaching obsolescence due to new fighter and air defense threats. At 
the F-22 Initial Operational Capability (IOC) date (Dec 05), the 
average age of the F-15C will be 26 years. Supportability is becoming 
very expensive in terms of maintenance and manpower costs. Many of our 
parts suppliers are moving on to commercial work. The F-22, a truly 
transformational design with its unique maneuverable stealth and 
supercruise, will provide rapid air dominance.
    A-10 and F-16 survivability against advanced threats are also 
becoming an issue, and the F-16 is rapidly approaching the end of its 
service life. Additionally, we have planned to cross flow new 
technologies from the F-22 to the JSF, so it is critical to keep F-22 
development on schedule to ensure JSF can affordably replace F-16 and 
A-10 prior to the end of their service lives. This mix is the most cost 
effective fiscal and operational solution to Air Force fighter 
modernization.
    The Air Force has historically (fiscal years 1975-2005) averaged 16 
percent of service Total Obligation Authority (TOA) on RDT&E and 
Procurement of aircraft. Procuring both the F-22 and the JSF, both of 
which are critical to our modernization, will expend less than this 
historical average. In its peak expenditure year, the F-22 encompasses 
just 5.6 percent of Air Force TOA or 1.7 percent of the DOD TOA, both 
of which are comparable to past modernization investment levels. If we 
committed the same percentage of national resources for the F-22 that 
we did for the F-15, we would be buying an inventory of 1000 F-22s.
                              f-22 program
    Question. Over the past several years, the F-22 program has been 
operating under a legislated production cost cap. This cap was based on 
the Air Force's assessment of what would be required to complete the 
buy of 339 aircraft. At the time, it was understood that there were 
other offices, including the Congressional Budget Office (CBO) and the 
Cost Analysis Improvement Group (CAIG) that had higher estimates of F-
22 production costs. Over the past couple of years, the committee has 
believed that F-22 production would fit within the cost cap, largely 
due to Air Force assurances that the various cost estimates were 
beginning to converge.
    This year, the Air Force estimate of production costs for the F-22 
is up by roughly $2 billion. In such a circumstance, we should have 
expected that this increase would have indicated some further 
convergence of the cost estimates. Press reports, however, indicate 
that the independent cost estimates have begun to diverge from the Air 
Force estimate.
    Why, in your opinion, are these cost estimates diverging?
    Answer. F-22 funding projections are well within historic norms of 
spending for aircraft development and procurement as a percentage of AF 
TOA, and the AF is proactively managing costs to remain within 
Congressional caps.
    Question. What steps should the Air Force take to ensure that it 
will be able to produce enough aircraft to meet the requirements for 
the program within the cost cap?
    Answer. Currently, the F-22 program is structured around a buy of 
339 aircraft. We are studying in this strategic review capabilities 
needed for the future, and what number of F-22s will meet those needs. 
The F-22 is a huge leap in capability--an airplane that can super-
cruise at well above 1.5 Mach; has very good legs; has stealth 
capabilities that are revolutionary. So the need for this airplane is 
very clear. The numbers will be the question as we go through this 
review. It is in testing right now and doing very well. In fact, its 
signature, its capability to super-cruise, its avionics capability and 
its aerodynamic capabilities are as we predicted them and, in some 
cases, better. We are behind on testing, but we're not going to rush 
that at the expense of safety or missing something as we develop this 
airplane. Testing is something you don't want to rush. It's not 
something that you restrict to a timeline--you do this in a very 
structured way. Overall, the program is in very, very good shape.
                             modernization
    Question. At a recent committee hearing, Air Force officials 
testified that the F-22 will not be able to meet its congressionally-
mandated cost caps for either development or production.
    What are your views on cost caps in general, and, specifically, on 
the F-22 cost caps?
    Answer. F-22 funding projections are well within historic norms of 
spending for aircraft development and procurement as percentage of AF 
TOA and the AF is proactively managing costs to remain within 
Congressional caps, but caps are currently constraining our testing. 
The F-22 flight-testing has been extremely successful--over 1260 hours, 
and the aircraft is demonstrating some revolutionary capabilities. Some 
delays have been encountered, due in part to late airframe deliveries, 
requiring additional time before initiating operational testing. To 
meet the additional costs associated with these delays, the Air Force 
recommends removal of the EMD cost cap. The actual development is 95 
percent complete--EMD caps are currently constraining continued flight-
testing.
    Question. The Source Selection decision for the Joint Strike 
Fighter is scheduled in the near future.
    Do you think the programmed quantities of the Air Force variant of 
this aircraft will be affordable?
    Answer. The JSF program is focused on affordability. JSF will 
provide a lower cost, multi-role fighter--the bulk of the force and a 
compliment to the F-22. The quantity of aircraft purchased will help 
keep costs lower. In addition, our contracting strategy provides 
incentives to the contractor to meet affordability goals. Three of 
eight key performance parameters for this program directly target 
reductions to Total Ownership Costs. Cost as an independent variable 
(CAIV) has been used during development to balance cost and operational 
capability in established weapon system requirements; the CAIV process 
will continue to bean integral part of the JSF program, ensuring a 
next-generation fighter--in the numbers we require--at a price we can 
afford.
    Question. What are your views on the future roles that will be 
played by Unmanned Combat Aerial Vehicles in the Air Force?
    Answer. The UCAV will join the B-2, F-22 and JSF in our vision of 
an all stealth force. The UCAV holds great promise for the future. Many 
challenges remain in terms of how we operationalize its capability as 
we move into the future. UCAVs will allow us greater degrees of 
stealthiness to be able to operate against projected anti-access 
threat. If confirmed, I intend to see to the development of a low life-
cycle cost, mission effective system design and demonstrate the 
critical technologies, processes, and system attributes for a UCAV 
weapon system as well as potential SEAD/Strike capabilities.
    Question. In recent operations, it appeared a larger percentage of 
weapons used were precision-guided.
    Answer. PGMs were highly effective in the Air War Over Serbia, 
resulting in decreased risk and limited collateral damage . The USAF 
employed over 5,289 precision munitions against nearly 64 percent of 
all desired impact points. The collateral damage rate was less than 0.1 
percent.
    Question. Are inventories of precision-guided weapons sufficient?
    Answer. No. They are still well below desired inventory level and 
failure to increase stockpiles risks wartime shortfalls. Northern/
Southern Watch and Allied Force significantly reduced inventory levels 
such that we must use War Reserve Munitions for training. Major 
acquisition programs will begin to increase precision inventories with 
the addition of JDAM, JSOW-B, and JASSM, however, serious shortfalls in 
standoff and legacy munitions persist through FYDP.
    Question. What are the major developmental thrusts that are 
necessary to improve the accuracy and lethality of our weapons 
inventories?
    Answer. I believe the JDAM, WCMD, JASSM, SDB, and ABL programs are 
the major developmental thrusts and these programs are on track.
                    f-22 event-based decision making
    Question. The Air Force is required to manage the F-22 program on 
the basis of achieving certain milestones, rather than ``graduating'' 
when certain time on the calendar has elapsed. There have been delays 
in the testing program that will delay the start of operational testing 
by up to one year from the previously planned date. Nevertheless, there 
is still some risk that developmental testing may not be able to 
support operational testing even on this delayed schedule.
    Can you assure the committee that the Air Force will not proceed to 
operational testing before the program has completed sufficient 
developmental testing?
    Answer. Yes! If confirmed, I will be committed to ensuring the F-22 
does not proceed to operational testing until sufficient developmental 
testing has been completed. It is critical that developmental testing 
be fully conducted in order to have the best possible capabilities 
ready for the operational testing. I will ensure the Air Force 
completes all necessary testing prior to certifying the F-22 is ready 
to enter DIOT&E.
                         unmanned air vehicles
    Question. In the Fiscal Year 2001 Floyd D. Spence National Defense 
Authorization Act, Congress set a goal that within 10 years one-third 
of U.S. military operational deep strike aircraft would be unmanned. In 
addition, Congress invested an additional $50 million above the 
President's budget request in the Air Force Unmanned Combat Air 
Vehicle.
    Do you support the 10-year goal of one-third of U.S. military 
operational deep strike aircraft being unmanned?
    Answer. Yes. I fully support the AF/DARPA project that is underway 
and that was chartered to achieve that very goal. The focus today is on 
developing UCAVs for the SEAD/Strike mission; other potential UCAV 
roles we're exploring include directed energy, electronic attack, and 
ISR.
    Question. Do you feel the current level of investment, the fiscal 
year 2002 President's budget request of $60 million, is sufficient to 
realize this goal?
    Answer. No. Although combined DARPA and AF funding of UCAV through 
fiscal year 2003 exceeds $200 million, no funding exists in the 
President's budget beyond fiscal year 2003. Fielding 30 deep-strike 
UCAVs will require an additional $1.3 billion between fiscal year 2002-
2007.
                           reserve components
    Question. Although the Department of Defense claims a commitment to 
the ``Total Force,'' some question this commitment. Those who question 
the Department's support of the Reserve components claim that the 
Reserve components do not receive an appropriate share of the defense 
budget and that they are not assigned appropriate missions. The most 
recent example of concern is raised by the Air Force proposal to retire 
the B-1 wings in the Air National Guard.
    What is your response to these concerns?
    Answer. I am a firm believer in the total force concept. We cannot 
complete our mission successfully without our Reserve component. The 
Air Force is a recognized leader in the integration of its Guard and 
Reserve Forces. The ARC is a full partner in the AFs corporate 
programming and budget process. Additionally, Guard and Reserve units 
participate in combat and combat support operations on a daily basis.
    The decision to consolidate B-1s is a monetary one. The money saved 
from consolidating the B-1 units onto two bases will be used to bring 
the remaining B-1 fleet up to current modernization levels. With over 
$2 billion in unfunded requirements, we can pour that money back into 
modernizing the remaining B-1 fleet.
    Question. What is the appropriate criteria for deciding on the 
appropriate missions and level of contribution from the Reserve 
components?
    Answer. On a larger scale, to be relevant in the present and future 
AF, which is key to funding and survival, the ARC must at all times 
mirror their AD counterparts. If the missions ever separate into an ARC 
vs AD mission, then funding, organization, training, equipping, etc. 
becomes threatened.
    From an AEF perspective: The appropriate criteria should be the 
same for the ARC as for any other Active Duty (AD) MAJCOM in the AF. If 
the ARC has a designed operational capability (DOC) statement tasking 
it to deploy F-16s to various theaters, the F-16 mission should be the 
same for the ARC as it is for the AD. If there is an air-to-ground, 
air-to-air, SEAD/DEAD mission, that criteria for that mission should be 
the same across the board.
    The level has to be based on a measure of volunteerism and what the 
Reserve components do is look at their historical participation and 
project how long per person and how long can the ARC sustain that 
mission over time. Subjectively, with volunteerism, the ARC on ECS can 
handle about 10 percent of the total steady state mission for AEFs.
    It is erroneous to dictate that it takes six ARC personnel for one 
AD person equivalent. By weapon system and position, on average for 
AEFs the ARC really is on a 1 for 3 or 1 for 4 level. It takes 3 to 4 
people/volunteers to fill one Active Duty position for one 3-month AEF 
rotation. If there is a PRC, we're back to one for one. To clarify, 
there are not 3 to 4 reservists on station for one AD person. There is 
only one person there. So to do the job on a daily basis, it takes only 
one person, but over the entire span of the deployment, 3 or 4 people.
    Question. Are the Reserve components used to the maximum extent 
practicable? If so, do they still have excess structure that can be 
eliminated?
    Answer. The ARC annually participates in all major contingencies, 
exercises, and competitions. Additionally, it is the linchpin of our 
humanitarian and North American Air Defense efforts.
    Question. Do you foresee any significant shift in the roles and 
missions currently performed by the Air National Guard and Air Force 
Reserve?
    Answer. The ANG and AFR currently play an integral part in reducing 
Active Duty tempo and we will continue to look for additional ways to 
use them in support of AF requirements.
                              base closure
    Question. The President's February budget blueprint document states 
that ``with 23 percent in estimated excess infrastructure, it is clear 
that new rounds of base closures will be necessary to shape the 
military more efficiently.''
    Do you believe that we need more base closures?
    Answer. Yes, BRAC is an integral part of readiness and 
modernization as infrastructure is reshaped to match changing mission 
needs and other requirements.
    Question. Do you believe the Air Force has excess infrastructure 
that uses resources that could be applied to higher priorities within 
the Department of the Air Force?
    Answer. Yes, the Air Force is over-based for the force structure we 
have today. We think that we can avoid significant costs in the out-
years with a base closure process.
    Question. Do you believe the process established by the Defense 
Base Closure and Realignment Act of 1990 is a fair and effective way to 
reduce excess military infrastructure and return the property to local 
authorities? What changes, if any, would you propose to this process?
    Answer. The facts clearly support our burden of excess 
infrastructure. The BRAC is the only method by which we have fairly 
reduced our burden in the past; thus, I believe BRAC is effective. 
Changes to the BRAC process may be in order. Such changes would be 
products of legislation on which I am not yet in a position to comment.
    Question. In your view, would changing the base closure process to 
exempt some bases from the independent commission's review make the 
process more or less open, fair, and stressful to communities with 
military installations?
    Answer. Again, any changes to the BRAC process would be products of 
legislation on which I am not yet in a position to comment.
    Question. Over the past several years, members of the Joint Chiefs 
of Staff have testified that there is excess defense infrastructure and 
requested Congress to authorize another round of base closure.
    Do you believe that we have excess defense facilities and, if so, 
where does this excess capacity exist?
    Answer. I will only speak for the United States Air Force, because 
I don't have insight into the other services' needs. I would say we as 
an Air Force are over 10 percent overbased.
                       brac environmental cleanup
    Question. In its report on Issues and Alternatives for Cleanup and 
Property Transfer of Base Realignment and Closure (BRAC) Sites, dated 
August 1, 2000, the Institute for Defense Analyses noted that despite 
Department of Defense efforts to accelerate the program by working with 
effected communities and with Congress, property transfer is taking too 
long and goals are not being met. Many BRAC acres have not yet been 
transferred. These problems are compounded by recent indications that 
there are funding shortfalls for BRAC cleanup in the fiscal year 2002 
budget of about $92 million in the Navy account and $55 million in the 
Air Force account. Such funding shortfalls adversely effect cleanup 
milestones, undercut the timeliness and value of property transfers, 
further harm communities already hurt by base closure, and threaten the 
overall credibility of the BRAC process.
    Do you believe that adequate funding for BRAC cleanup should be an 
Air Force priority?
    Answer. I believe it is important to keep BRAC cleanup on schedule 
for the benefit of the communities. The Air Force is committed to 
responsible environmental stewardship.
    Question. What is your response to the shortfalls in the fiscal 
year 2002 budget?
    Answer. If confirmed, I will work to alleviate shortfalls in the 
fiscal year 2002 budget in order to keep clean up on time and meet the 
program goals.
                      investment in installations
    Question. The military departments have consistently struggled to 
maintain their base infrastructure. The backlog of real property 
maintenance has remained high, whether budgets were increasing or 
decreasing. The military is far behind industry standards for 
maintaining and modernizing its facilities. Even the substantial 
increase in the Operation and Maintenance accounts in the fiscal year 
2002 budget request does not provide sufficient funding to maintain the 
Air Force's facilities in their current status.
    Are there any new approaches to this issue that you believe could 
help the Air Force move toward a solution of this perennial problem?
    Answer. If confirmed, I will support BRAC to eliminate excess 
infrastructure. BRAC is an integral part of readiness and modernization 
as infrastructure is reshaped to match changing mission and other 
requirements. Other DOD initiatives should augment (not replace) BRAC.
    Question. Traditionally, funding the upkeep of installations has 
been a low priority in the services' budgets. It is anticipated that 
after the completion of the current Quadrennial Defense Review, future 
budgets will devote a greater share of resources to modernization and 
transformation efforts.
    Do you expect that funding for real property maintenance will 
decline even further once the QDR is completed?
    Answer. It is too early to tell. But, if real property maintenance 
(RPM) continues to decline, we will feel the impact on readiness and 
retention. Our people deserve more than a 191-year plant replacement 
value rate for their facilities.
                  outsourcing of commercial activities
    Question. Over the past several years the Department of Defense has 
increased its reliance on the private sector to perform certain 
activities including equipment maintenance and facility operations.
    Do you believe that the military services should retain a core 
capability to perform certain key support activities such as equipment 
maintenance?
    Answer. Yes. In the Air Force, we have improved efficiency and 
saved money by privatizing areas such as utilities, housing, and 
demolition, and A-76 conversions have added to savings, but the Air 
Force must retain core capabilities for any support activities which 
have the potential to adversely affect our combat capability (such as 
for maintenance on equipment which is essential for deployment).
                          encroachment issues
    Question. The Senior Readiness Oversight Committee is currently 
reviewing a group of readiness challenges it has characterized as 
``encroachment'' issues. These include population growth near military 
installations, environmental constraints on military training ranges, 
airspace restrictions to accommodate civilian airlines, and the 
conflicts with civilian users over the use of radio frequency spectrum.
    In your opinion, how serious are these problems for the Department 
of the Air Force?
    Answer. Encroachment is a very serious problem for the Air Force. 
Maintaining continued access to our ranges, airspace and frequency 
spectrum is absolutely critical; in fact, if our ability to train our 
aircrews continues to diminish, America will soon lose its only edge in 
air combat proficiency. We can no longer rely on current Air Force 
technology to provide an advantage against our next adversary-that next 
adversary already has access to more advanced equipment than ours. It 
is only our superior training that enables our pilots to have the upper 
hand in air combat. That training depends on the right amount and the 
right type of ranges and airspace. These areas are national assets that 
allow the Air Force to test new equipment, develop new tactics, and 
train our forces to be combat-ready. AF ranges also accommodate 
important civilian industry aeronautical testing, and provide for 
public use and natural and cultural resource protection.
    Question. If confirmed, what role do you expect to play in 
addressing these challenges and what actions would you propose to take 
to address them?
    Answer. If confirmed, my role will be to direct the Air Force to 
meet military needs while addressing public concerns along with 
Federal, tribal, state, and other agency issues. We have adopted a 
spirit and practice of flexibility and willingness to adapt without 
compromising our operations. In fact, in 1994 the AF organized and 
stood-up an airspace and range staff in the Pentagon to work the issues 
facing our combat forces, and in 1995, Air Combat Command created an 
interdisciplinary staff that works range and airspace issues on a daily 
basis. Additionally, we realize the importance of establishing and 
maintaining permanent relationships with stakeholders. These 
stakeholders are supportive of the AF and our mission. Sustainable 
access to ranges benefits many people. Our ranges contain significant 
cultural and natural areas, are used for grazing and crop production, 
and allow hunting or other forms of outdoor recreation.
    Question. Of particular concern to the Air Force, commercial air 
traffic is expected to increase 6 percent annually, and military 
airspace use will also increase with the next generation of high 
performance weapon systems. As a result of the pressures associated 
with commercial air traffic congestion, noise, and other concerns, the 
acquisition and use of special use airspace has evolved into a 
challenging endeavor for all of the military departments.
    If confirmed, what actions would you propose to address this 
challenge?
    Answer. With the advent of the F-22 and JSF, we will go to the 
limits of our current range and airspace capability to accommodate both 
Operational, Test and Evaluation (OT&E) and training requirements. Not 
only will more sophisticated instrumentation be needed but more complex 
surface-to-air threat emitters will be required. These two 
sophisticated systems will allow us to maximize our daily training by 
providing proper feedback of our missions and give us realistic threats 
to simulate actual combat. As our weapons, weapons systems and tactics 
evolve, we cannot endure further encroachments that will decrease the 
size or quality of the airspace and ranges we use or our training will 
suffer, thereby affecting our combat readiness.
    Efforts are also underway now to link space and information 
operations (IO) test and training capabilities to the range and 
airspace structure. Such physical and virtual connectivity will allow 
air, space, and IO capabilities to test and train in an integrated 
fashion. This will not create an increased requirement for physical 
range space, but we will have limited funding and manpower to perform 
the integration of these capabilities as well as exercising them on the 
range.
    We not only need land and airspace, but we rely heavily on critical 
parts of the electronic spectrum to carry out our missions. We must 
also ensure we can continue developing new electronic countermeasures 
and counter-countermeasures systems and capabilities as well as 
exercise existing systems as closely as possible to how we would employ 
them in conflict. In the future, we expect to encounter increasing 
challenges not only with our current level of operations, but also with 
beddowns of new weapon systems or realignments.
    Maintaining our edge in air combat is directly linked to robust 
training capabilities, capabilities inherent in continued access to AF 
ranges and airspace. The AF recognizes the need to balance its test, 
training, and readiness requirements with responsible stewardship. We 
continue to look to our installations, ranges and airspace to provide 
the AF the operational flexibility, efficiency, and realism necessary 
to continuously enhance readiness while allowing commanders to 
minimize, to the extent possible, the impacts of their mission on the 
community, the environment, and the National Airspace System. The 
challenges we face require effective communication with all affected 
parties. The partnerships we have with our sister services, civilian 
government agencies, and other stakeholders are essential. Moreover, 
legislative and fiscal initiatives are also needed. Together, we can 
meet these challenges head-on and sustain America's readiness into the 
21st century.
                            readiness levels
    Question. What is your assessment of the current readiness of the 
Air Force to execute its assigned missions?
    Answer. Our dominance of the full spectrum of operations tends to 
overshadow what has happened to our readiness. Responding across this 
full spectrum of operations necessitates we have a certain number of 
units ready to deploy in the first 30 days of conflict. This is the 
basis of our readiness requirement of 92 percent. Since 1996, our 
worldwide combat force readiness rates have decreased 23 percentage 
points to a rate of 68 percent in April 2001. Furthermore, our overall 
Air Force readiness is lower than any time since June 1987. We are 
capable of winning today; however, we are concerned about these trends 
in readiness indicators.
    The Air Force's major areas of concern are aging aircraft, 
retaining an experienced workforce, and working with constrained 
resources and parts (aging infrastructure, cannibalization of ``hangar 
queens'').
    Aging Aircraft: A major factor in the decline is the increasing age 
of our aircraft. On average, our aircraft are about 22 years old, and 
getting older. An aging fleet costs more, both in effort and dollars, 
to operate and maintain. For example, our flying hours have remained 
relatively constant over the past 5 years, but their cost has increased 
by over 45 percent after inflation. Older aircraft are simply more 
difficult to maintain as mechanical failures become less predictable, 
repairs become more complicated, and parts become harder to come by and 
more expensive. But, even with these contributing factors, we had the 
best year in our history for aviation safety, a clear measure of our 
people's professionalism.
    Experienced Workforce: People are our most vital resource; the most 
crucial readiness component. Loss of experienced personnel contributed 
to 24 percent decline in readiness since 1996.
    Constrained Resources: We are also experiencing infrastructure 
shortfalls in our facilities (i.e., bases), vehicles and support 
equipment, and communications infrastructure. Sufficient inventories of 
weapon system spare parts are crucial to mission readiness. Lack of 
spares puts a severe strain on the entire combat support system, 
creating increased workload for our logistics personnel and reducing 
the number of mission-capable aircraft available to our operational 
forces. When our logistics system suffers parts shortages, maintenance 
personnel must either cannibalize parts from other equipment or 
aircraft to serve immediate needs, or accept degraded readiness while 
they wait out long-delivery times for back-ordered parts.
    Spare Parts: With recent financial assistance from the 
administration, Office of the Secretary of Defense (OSD), and Congress, 
we are turning our spare parts problems around. However, as our 
fighter, ISR, combat search and rescue, mobility, and tanker aircraft 
continue to age, they need more frequent and substantial repairs, 
driving up readiness costs. This, in turn, reduces the number of 
aircraft available for missions and creates higher demands on the 
remaining fleet. Reversing this trend will take additional funding and 
a concerted recapitalization effort. In addition, the maintenance tasks 
and materiel growth inherent in supporting our aging aircraft fleet 
have increased our depot workload. Limited depot infrastructure 
investment over the past decade, coupled with constrained funding, adds 
to our already significant challenges in meeting readiness 
requirements.
    Question. What are your recommendations for addressing your major 
areas of concern?
    Answer. Aging Aircraft: The increasing cost of readiness (including 
operations and maintenance) is consuming the funds required to 
modernize our systems and our infrastructure. We have developed a 
responsible, time-phased plan to modernize our force without 
sacrificing readiness or capability goals.
    Experienced Workforce: We have reshaped ourselves into an 
Expeditionary Aerospace Force (EAF) to balance impacts of a less 
experienced workforce and improve retainability by providing 
predictability and stability through our AEFs. We have also increased 
the use of Air Reserve Component (ARC). If confirmed as CSAF, I will 
continue to work on improving retention. People are our most important 
asset. Other improvement programs include compensation packages and 
quality of life programs that will make the AF competitive and 
desireable. I will also continue to work on improving access to quality 
health care, workplace environments, and providing safe, affordable 
housing.
    Continue to reduce the military pay gap relative to private sector; 
Reduction of out-of-pocket expenses; Enhanced legislative flexibility 
on Special Pays and Bonuses to target critical skills; Pursue force 
shaping initiatives to optimize civilian workforce; Improve TRICARE for 
Active Duty members, retirees, and family members.
    Spare Parts: Recent improvements in spare parts funding are turning 
this situation around. Through internal funding realignment, the 
administration, OSD and congressional plus-ups, we were able to spend 
an additional $2 billion for spare parts over the past 2 years. This 
helped replenish inventories drained during Operation Allied Force. 
During the summer 2000 program review, the DOD fully supported our 
efforts to fill shortfalls in the spare-parts pipeline which were 
impacting operational requirements. Additional administration and OSD 
support for fiscal year 2002 includes full funding of the flying hour 
program and our airlift readiness spares packages, and increased 
funding to reduce the spares repair backlog.
    Overall: We need to fix readiness shortfalls in key logistics 
resources including people, skills, spares, munitions, bare base 
assets, and vehicles. We need to improve our capability to rapidly 
develop deployment and sustainment plans for fast-breaking 
contingencies. Finally, we are making enhancements to our ACS command 
and control capability to make it more responsive, better integrated, 
and sufficiently robust to support EAF needs. These agile combat 
support initiatives are crucial to sustaining current and future combat 
operations.
                         readiness assessments
    Question. General Shinseki recently described our current readiness 
standards as ``a Cold War legacy'' that ``reflect neither the 
complexity of today's strategic and operational environments nor other 
important factors.''
    What do you believe are the critical elements of a readiness 
assessment system?
    Answer. The critical elements of a readiness assessment system look 
at personnel factors as well as weapon systems issues. A valid 
assessment system would then look at the possible operational 
environments and determine how and to what degree the Air Force can 
achieve the desired effects.
    Question. Does our current system contain these elements?
    Answer. Yes.
    Question. Do you believe the Department can create a new readiness 
measurement system that will be able to better assess readiness for 
joint operations and predict future readiness?
    Answer. I think we can be more consistent across the Services 
regarding how we assess readiness. Per CSAF direction, as CAF Lead, I 
am responsible for certifying to USCINCJFCOM that each of our 10 
Aerospace Expeditionary Forces (AEFs) we present to him meets the 
requirements for its 3-month deployment vulnerability window. To ensure 
accurate reporting, we have developed an AEF Certification process, 
designed to increase chain of command involvement by moving readiness 
processes from the functional level to the command level. This process, 
in conjunction with our current Status of Operational Readiness and 
Training (SORTS) report, will provide us a clearer picture of current 
and future readiness.
            readiness reports vs. statements from the field
    Question. One of the principal readiness concerns of the committee 
is the apparent disconnect between the official readiness reports the 
committee receives from the Pentagon and the concerns we hear from the 
operating forces. In the past, official reports and statements often 
indicated that the readiness of our military forces was high. 
Statements made by individuals in the operating forces, however, cast a 
far different picture. Recently, we have seen the official reports 
indicate that the readiness of the forces has been in decline. This 
more accurately reflects what we see in the field.
    In your view, does the foregoing reflect a problem with the way we 
measure and report readiness?
    Answer. No. However, we are instituting a process that will help 
address this issue. Per CSAF direction, as CAF Lead, I am responsible 
for certifying to USCINCJFCOM that each of our 10 Aerospace 
Expeditionary Forces (AEFs) meets the requirements for its 3-month 
deployment vulnerability window. To ensure accurate reporting, we have 
developed an AEF Certification process, designed to increase chain of 
command involvement by moving readiness processes from the functional 
level to the command level. This process, in conjunction with our 
current Status of Operational Readiness and Training (SORTS) report, 
will provide us a clearer picture of readiness. The objective of 
certification is to hold commanders at each level accountable for 
organizing, training and equipping Unit Tasking Codes (UTCs), in order 
to provide required mission capability and to inform the CINCs on the 
status of deploying forces. Bottom line, commanders must send every 
individual and UTC into theater full-up and ready to fight.
    Question. If confirmed, what actions would you take to ensure that 
you are kept abreast of the readiness concerns of the Air Force 
operating forces that may not always be represented in the official 
reports?
    Answer. Key readiness concerns that impact operations and training 
are accounted for in our Status of Readiness and Training (SORTS) 
Reports. Additionally, we have developed an AEF Certification process 
designed to increase chain of command involvement by moving readiness 
processes from the functional level to the command level. The objective 
of certification is to hold commanders at each level accountable for 
organizing, training and equipping UTCs, in order to provide required 
mission capability and to inform the CINCs on the status of deploying 
forces. That includes the responsibility of raising concerns to the 
appropriate level to obtain remedy or relief, when applicable. Bottom 
line, commanders must send every individual and UTC into theater full-
up and ready to fight.
    Question. If confirmed, what actions would you take to ensure that 
these concerns are captured in the reports that the Air Force provides 
to the DOD as a whole as well as Congress?
    Answer. I firmly believe that effective leadership demands the 
ability to provide an honest assessment of capability, which includes 
the highlighting of shortages. I expect my commanders to be aware of 
and raise readiness concerns to the appropriate level to obtain remedy 
or relief as applicable. If nominated, I will continue to drive this 
point home with AF leaders at all echelons.
                               readiness
    Question. Over the last few years we have heard increasing reports 
that the readiness of the U.S. Armed Forces has begun to deteriorate as 
a result of the over-commitment of an under-resourced Department of 
Defense.
    What do you view as the major readiness challenges that will have 
to be addressed by the Air Force over the next 4 years, and, if 
confirmed, how will you approach these issues?
    Answer. The Air Force has and will continue to focus on aggressive 
transformation to the extent our budget allows. This Fiscal Year 2002 
budget shores up some of our most critical people and readiness 
concerns and allows us to remain the world's most respected aerospace 
force.
    Total Air Force readiness has declined 23 percentage points since 
1996. We attribute this decay to the problems associated with 
supporting the oldest aircraft fleet in Air Force history; the 
inability to retain an experienced workforce; and constrained resources 
and spare parts. With recent financial assistance from the 
administration, Office of the Secretary of Defense (OSD), and Congress, 
we are turning our spare parts problems around. However, as our 
fighter, ISR, combat search and rescue, mobility, and tanker aircraft 
continue to age, they need more frequent and substantial repairs, 
driving up readiness costs. This, in turn, reduces the number of 
aircraft available for missions and creates higher demands on the 
remaining fleet. Reversing this trend will take additional funding and 
a concerted recapitalization effort. In addition, the maintenance tasks 
and materiel growth inherent in supporting our aging aircraft fleet 
have increased our depot workload. Limited depot infrastructure 
investment over the past decade, coupled with constrained funding, adds 
to our already significant challenges in meeting readiness 
requirements. We are also experiencing infrastructure shortfalls in our 
base facilities, vehicles and support equipment, and communications 
infrastructure. Overall, we are committed to improving readiness, and 
it must be synchronized with our people, infrastructure, and 
modernization programs.
                 cinc identified readiness deficiencies
    Question. The latest Quarterly Readiness Report to Congress 
identified 87 CINC-identified readiness related deficiencies. Thirty 
one of these are listed as Category I deficiencies, which entail 
significant warfighting risk to execution of the National Military 
Strategy. Most of the specific deficiencies have been reported for the 
past several years and have not as yet been effectively addressed.
    If confirmed, what actions would you take to ensure that the Air 
Force dedicates sufficient resources to address these CINC-identified 
readiness deficiencies?
    Answer. Thanks to the tremendous talent of our people, we have 
enjoyed great victories in combat. These victories tend to overshadow 
what has happened to our readiness. Responding across this full 
spectrum of operations necessitates we have a certain number of units 
ready to deploy in the first 30 days of conflict. This is the basis of 
our readiness requirement of 92 percent. Since 1996, our worldwide 
combat force readiness rates have decreased 23 percentage points to a 
rate of 68 percent in April 2001. Furthermore, our overall Air Force 
readiness is lower than any time since June 1987. We are capable of 
winning today; however, we are concerned about these trends in 
readiness indicators. A major factor in the decline is the increasing 
age of our aircraft. For example, our flying hours have remained 
relatively constant over the past 5 years, but the cost of those flying 
hours has increased by over 45 percent after inflation. Older aircraft 
are simply more difficult to maintain as mechanical failures become 
less predictable, repairs become more complicated, and parts become 
harder to come by and more expensive.
    The increasing cost of readiness (including operations and 
maintenance) is consuming the funds required to modernize our systems 
and our infrastructure. We have developed a responsible, time-phased 
plan to modernize our force without sacrificing readiness or capability 
goals.
                 near-term readiness vs. modernization
    Question. One of the long-standing concerns of the committee is 
that the services, in an attempt to maintain near-term readiness and 
pay for numerous contingency operations, have under-funded long-term 
readiness, i.e., modernization accounts. This has resulted in equipment 
becoming old and increasingly expensive to maintain. This increased 
expense has created an additional hurdle in the way of our ability to 
maintain current readiness and modernize for the future.
    If confirmed, what recommendations would you make to the Secretary 
of the Air Force in order to resolve this downward readiness cycle?
    Answer. Contingency operations are a reality for today's Air Force. 
We must recognize that reality in our force structure, modernization, 
budgeting, and planning processes. The ongoing QDR does contain 
criteria which accurately reflect our operating environment: we must be 
able to win a major theater war, while maintaining the capability to 
halt aggression in other parts of the world and continue numerous 
small-scale operations elsewhere. In future reviews, we must also take 
into account backlogs such as we have in real property maintenance. 
These are areas which we must work to resolve, and every year of delay 
simply puts us that much deeper into the hole.
                       quadrennial defense review
    Question. Congress required the Department of Defense to conduct 
the Quadrennial Defense Review to include a comprehensive examination 
of the defense strategy, force structure, force modernization plans, 
infrastructure, budget plan, and other elements of the defense program 
and policies with a view toward preparing the Armed Forces of the 
United States for the security environment of the 21st century.
    Please outline your views on how to best organize and equip the Air 
Force to support the National Military Strategy. What do you believe 
should result from the QDR process?
    Answer. The QDR process will give us a clear idea of the force 
structure required across the Services to fulfill the National Military 
Strategy. In past QDRs, we used the two-major-regional-contingencies 
and two-major-theater-wars scenarios to calculate the depth of force 
structure required, and we assumed that any other activities would be 
lesser-included cases of those two scenarios. However, this QDR uses a 
different scenario, recognizing that we need to continue to be able to 
win one major theater war, while maintaining the capability to repel 
attack in other areas of the world, and continuing to do a series of 
smaller, lesser-scale contingencies at the same time. We are in the 
process right now of putting forces against those requirements to 
measure our required force structure. The result of this process will 
give us a clear idea of how best to organize and equip the Air Force.
                           flying hour costs
    Question. For the past several years, the Air Force has requested 
increases above their budget requests to deal with unanticipated growth 
in the cost of their flying hour program. The Air Force budget for 
fiscal year 2002 contains significant increases in funding for flying 
hours.
    Do you believe this year's budget request fully funds your program 
so that you will not need to seek additional funding to execute your 
flying hour program?
    Answer. Your support of the fiscal year 2001 supplemental request 
will further help us maintain our readiness levels. However, we still 
need your continued support to improve our readiness. Your United 
States Air Force is currently operating and maintaining the oldest 
aircraft fleet in our history. On average, our aircraft are about 22 
years old, and getting older. An aging fleet costs more, both in effort 
and dollars, to operate and maintain. Last year, while we flew only 97 
percent of our programmed hours, they cost us 103 percent of our 
budget. Over the past 5 years, our costs per flying hour have risen 
almost 50 percent.
    Question. What steps is the Air Force taking to control this cost 
growth?
    Answer. The only way we can control these costs is to recapitalize 
the aging fleet.
                    need for overseas installations
    Question. The Air Force currently maintains a network of bases to 
support our forward deployed forces.
    Do you believe that an increased emphasis on long-range power 
projection would decrease the need for permanent basing for forward 
deployed Air Force personnel?
    Answer. No. We have already drawn down our overseas basing to a 
critical level. As we saw with Operation ALLIED FORCE (OAF), our forces 
are capable of traveling thousands of miles to conduct precision 
strikes. However, to conduct an effective air campaign such as OAF, you 
must have persistent air power and the capability to perform time-
critical strike which dictate that either permanent or temporary 
forward basing will continue to be a requirement for effective 
operations.
                          reducing commitments
    Question. In recent years there has been concern over the level of 
deployments and the time service members spend away from home. The Air 
Force has created the Expeditionary Aerospace Force (EAF) concept to 
make deployments more predictable. Congress has enacted a per diem 
payment for members deployed above a specified number of days. Another 
approach to controlling or reducing time away from home is to reduce 
the number of overseas commitments.
    What are your views on the contributions that each of these three 
approaches has made or could make to managing the OPTEMPO of Air Force 
personnel?
    Answer. The Expeditionary Air Force concept has done an excellent 
job of providing predictability and stability to our Airmen. While 
there are still some areas to be worked out, we continue to improve our 
capability to deploy customizable Aerospace power packages to theater 
CINCs. The congressional initiative to compensate personnel for 
extended deployments may also help our young Airmen deal with the 
challenges of our worldwide commitments. We need to continue to do 
everything possible to take care of our personnel meeting the 
deployment needs associated with our national strategy. That strategy 
will dictate the amount of overseas commitments, and the Air Force 
stands ready to support those commitments, whatever they may be. In 
addition, we are prepared to assist in assessing our current overseas 
commitments.
                    overseas contingency deployments
    Question. Congress has long been concerned about the impact on 
readiness of the numerous deployments of our military personnel over 
the last 8 years.
    What are your views regarding the impact of contingency operations 
on military readiness?
    Answer. We must continue to address years of constant high tempo, 
aging equipment, and reduced defense spending to meet the high demands 
we place on our people and systems. Several years of sustained high 
operations tempo, aging equipment, and reduced funding have led to a 
slow, steady decline in readiness. It will take several years of 
significant investment to recover. We must restore readiness through 
substantial and sustained recapitalization of people, equipment, 
infrastructure and ``info''-structure. However, contingency operations 
are a reality in today's Air Force, and we must recognize that reality 
in force structure, modernization, budgeting, and planning processes.
                            associate wings
    Question. The Air Mobility Command has had great success with its 
Associate Wings. These Wings allow the Air Force to maximize the use of 
airlift aircraft without incurring the high cost of increased Active 
Duty end strength.
    Based on the success that the Air Mobility Command has had with the 
Associate Wing concept, why has this concept not been expanded to the 
Air Combat Command? What are your views on expanding the Associate Wing 
concept to include the Air Combat Command?
    Answer. There are obvious synergies and benefits to Reserve 
associate programs throughout the Air Force. As you probably know, we 
have completed a very successful test of a fighter Reserve Associate 
Program at Shaw AFB. AMC has indeed been very successful in such 
programs, and ACC and AFRC are in the midst of developing the 
requirements for expansion to other weapon systems. Reserve associate 
programs have tremendous potential to leverage the experience resident 
in the Air Reserve Component.
                            space commission
    Question. What are your views on the need for legislation to 
implement the recommendations of the Space Commission?
    Answer. We support the decisions and recommendations of the Space 
Commission. The Air Force is the right service for department-wide 
responsibility for planning, programming and acquisition of space 
systems. We are currently realigning to effectively organize, train, 
and equip for prompt and sustained offensive and defensive space ops. 
This move reduces fragmentation within both DOD and intelligence 
committee and improves space advocacy by implementing a single chain of 
authority. We must employ space to speed transformation of the military 
and effectively prepare for future conflicts.
    Question. If confirmed, how will you ensure that interests and 
requirements of all services are preserved under an Air Force Executive 
Agency for Space?
    Answer. A new and comprehensive national security space management 
and organizational approach is needed to promote and protect our 
interests in space. It was the commissions assessment that DOD and the 
intelligence community are not currently focused to meet 21st century 
national security space needs. The relationship between the Secretary 
of Defense and Director, Central Intelligence will continue to be 
critical for future development. It was the commissions conclusion that 
current methods of budgeting for national security space programs lack 
visibility and accountability. The Air Force will work to correct that 
to meet the needs of all DOD space users.
    Question. Do you see a need to maintain a strong cadre of space 
professionals in all the services?
    Answer. The demands for integration of space capabilities and 
information for modern warfighting will continue to grow in the future. 
It will be essential that all the services understand how to integrate 
space into combat operations. If confirmed, I will ensure that the U.S. 
Air Force works closely with other services to coordinate efforts to 
effectively use space assets.
    Question. If confirmed, how will you ensure that the Air Force 
helps to develop and sustain such a DOD-wide cadre?
    Answer. If confirmed, I will ensure that the Air Force makes 
available the coordinated training to ensure that an appropriate level 
of expertise is in all services to ensure effective application of 
space assets.
                              space future
    Question. What is your vision for the future of the space component 
of the Air Force?
    Answer. We are working toward increased funding for space 
surveillance to hone a developing space-based capability. The Air Force 
is working to fund and lead technology efforts, developing capabilities 
for offensive and defensive systems. The Air Force continues to ensure 
we are creating an effective organizational structure for space 
control. This led to the creation of new Space Control and Space 
Aggressor squadrons. We have also created a Counterspace Oversight 
Council to deal with future threats to our space-based assets.
    Question. In your view, how should the Air Force approach its 
mission of ensuring continued access to space?
    Answer. The AF recognizes its unique capabilities and 
responsibilities with respect to space operations and is committed to 
meet the space leadership challenge. To ensure continued access to 
space, the Air Force id working in close, active partnership with our 
sister services, agencies, and industry to implant the recommendations 
from the Broad Area Review on spacelift. We will also work to improve 
the organization, management, and employment of space to meet the 
growing Joint Warfighter needs. Finally, the Air Force will continue to 
work closely with the Intelligence, civil, and commercial space 
communities to enhance and exploit the full range of our Nation's space 
capabilities.
    Question. Do you agree with the recommendation of the Space 
Commission that the ``U.S. must participate actively in shaping the 
space legal and regulatory environment?''
    Answer. Yes, there must be an effective means to monitor and 
control space assets, and we in the U.S. Air Force will be an active 
participant in shaping the environment based on our capabilities and 
expertise.
    Question. Do you agree with the recommendation of the Space 
Commission that ``To protect the country's interests, the U.S. must 
promote the peaceful use of space. . .?'' In your view, how should the 
Air Force participate in implementing this portion of the 
recommendation?
    Answer. Yes, the peaceful use of space is essential to our 
Nation's, and the international community's, interests. We need safe 
and reliable space-based communications and research capabilities to 
further U.S. interests. Additionally, space assets are increasingly 
critical to our national security. The Air Force will ensure continued 
access to these technologies through a new and comprehensive national 
security space management and organizational approach designed to 
promote and protect our interests in space.
    Question. Do you agree with the Commission observation that U.S. 
dependence on and vulnerability of its space assets makes the U.S. ``an 
attractive candidate for a `Space Pearl Harbor'?''
    Answer. I agree that much like other U.S. military resources, space 
assets make a lucrative target for those that wish to discredit or 
damage the United States. However, we are aware of the threats posed to 
space-based assets and are vigilant to finding ways to counter possible 
threats. It is unlikely we would be taken completely unaware by an 
attack on our space capabilities.
    Question. Do you agree with the Commission recommendation that the 
U.S. ``develop and deploy the means to deter and defend against hostile 
acts directed at U.S. space assets and against the uses of space 
hostile to U.S. interests?'' How would you recommend that the Air Force 
support this recommendation?
    Answer. I agree with the space commission findings, the U.S. Air 
Force will work to ensure that space remains a safe environment to 
support U.S. interests. The Air Force is realigning to effectively 
organize, train, and equip for prompt and sustained offensive and 
defensive space ops, protecting the space realm as we do the 
environment over the world's battlefields.
    Question. Do you agree with the Commission assessment that 
deterrence would be strengthened through development of the capability 
to project power in, from, and through space?
    Answer. Yes, the inherent nature of space-based assets gives the 
Air Force better access to all regions across the face of the earth. By 
continued development of space systems we gain not only access to 
collect information from denied or difficult to reach regions, we will 
also be better able to communicate and command operations in those 
areas. Through the continued, controlled development of space, we 
increase our ability to observe regions of instability, or monitor 
peacekeeping/enforcement operations, increasing U.S. overseas influence 
without increasing deployed presence.

                                 icbms
    Question. Do you support retirement of the Peacekeeper ICBM?
    Answer. Yes. The Program Budget Directive supports the transition 
of Peacekeeper warheads to the Minuteman III force. The Air Force has 
been planning for the retirement of Peacekeeper and the SecDef has 
announced his intention to retire PK beginning in fiscal year 2002, and 
I support that move.
    Question. The deactivation will take a minimum of 3 years to remove 
the 50 boosters and reentry systems and an unknown number of additional 
years to successfully complete clean-up activity.
    Do you support retirement of the W62 warhead from the Minuteman III 
ICBM?
    Answer. Yes. The Air Force has programmed the retirement of the 
MK12/W62 warhead from the active ICBM warhead fleet. The Safety 
Enhanced Reentry Vehicle (SERV) program will provide the design and 
equipment to place the MK21/W87 warhead, (being removed from the 
Peacekeeper) on the MMIII as a replacement for the W62.
    Question. Will you support full funding in the future to retire the 
Peacekeeper beginning in fiscal year 2003?
    Answer. I support the President's Budget and the placement of the 
PK retirement within that process.
    Question. If the W62 warhead is retired, is there an existing or 
refurbished nuclear weapon in the stockpile which will fill the DOD's 
requirement met by the W62 or is it no longer required?
    Answer. The MK21/W87 and MK12A/W78 Warheads are planned to replace 
the present MK12/W62 on the MMIII system.
    Question. If the W62 warhead is retired, would it be dismantled or 
would it be placed in the nuclear weapons stockpile Reserve?
    Answer. The current plan is to place the MK12/W62 warhead into 
storage until final disposition is determined.
    Question. Do you support de-alerting any ICBMs?
    Answer. The Nuclear Posture Review (NPR) is currently being 
conducted by the Department of Defense and I understand alert status is 
being examined in this review. I anticipate being fully engaged with 
the NPR as it unfolds more completely in the coming months. There are 
some enduring fundamentals that are at the foundation of deterrence 
that the NPR will have to take into account. ICBMs are an essential 
element of the United States' nuclear forces and I believe will remain 
so in whatever future framework evolves. As such, I believe that those 
systems should be operated as designed--on alert. To do otherwise by 
increasing the time it takes to employ these forces increases safety, 
security, stability, and possibly even proliferation risks. As a matter 
of military practice, lowering military readiness lessens credibility.
                   science and technology investment
    Question. Secretary Rumsfeld, in his June 28, 2001 testimony, 
publicly stated that he has set a goal of 3 percent of the total 
defense budget for the Defense Science and Technology program.
    If confirmed, would you support a similar goal for the Air Force 
Science and Technology portfolio as a percentage of the entire Air 
Force budget?
    Answer. I am in lock step with Secretary Rumsfeld. Our Science and 
Technology portfolio is our investment in the future and cannot be 
forsaken. Already, potential adversaries possess capabilities beyond 
those of our own. We cannot afford to fall farther behind. To do so 
would violate the sacred trust of our Airmen because we owe it to them 
to arm them with the most advanced technology possible.
                science and technology planning process
    Question. In Section 252 of the Fiscal Year 2001 Floyd D. Spence 
National Defense Authorization Act, Congress required the Secretary of 
the Air Force to conduct a review of the long-term challenges and 
short-term objectives of the Air Force science and technology programs. 
This review is scheduled for completion in October, 2001.
    If confirmed, how would you ensure that the uniformed officers are 
engaged in the science and technology process for determining long-term 
challenges and short-term objectives critical for future defense 
superiority?
    Question. I firmly believe we must focus our science and 
technology, and acquisition efforts, on valid warfighter requirements. 
If confirmed, I will ardently work to foster constant science/
technology and warfighter interface. The goal of this is a streamlined 
acquisition and development process geared exclusively at addressing 
warfighter requirements.
    Question. In your view, does the current Air Force science and 
technology portfolio adequately support the warfighter of today and the 
future?
    Answer. AF science and technology supports the AF vision of an 
Expeditionary Aerospace Force in the 21st century and is funded at a 
level to achieve Critical Future Capabilities. Our fiscal year 2002 
budget reflects a real growth increase of 5.2 percent for science and 
technology compared to fiscal year 2001.
    Question. If confirmed, how do you intend to facilitate 
communication between the science and technology community and the 
warfighter?
    Answer. If confirmed, I will establish a recurring system of 
conferences whereby the warfighter and the science and technology 
community regularly meet to discuss requirements and possible 
solutions.
                         education savings plan
    Question. Another legislative proposal under consideration by the 
committee to address the cost of education for dependent spouses and 
children envisions the award of United States Savings Bonds to military 
members in connection with reenlistment. If implemented, it potentially 
could provide a flexible, tax-leveraged means for service members to 
fund the cost of college tuition for their dependent family members.
    If confirmed, will you give serious consideration to how the Air 
Force could use the award of U.S. Savings Bonds as a means to enable 
Airmen to save money for the education of themselves and their 
dependents?
    Answer. Yes. I firmly believe we recruit the individual but retain 
the family. Helping to reduce the cost of education for both service 
members and family members is another way of helping us achieve our 
retention goals.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Air Force Chief of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Question Submitted by Senator Edward M. Kennedy
                          command and control
    1. Senator Kennedy. General Jumper, as a result of your experiences 
in Kosovo, I know you are concerned about improving command and control 
for the warfighter. As you are aware, Air Combat Command (ACC) is 
working with the Electronic Systems Center (ESC) at Hanscom Air Force 
Base on making these essential improvements. Could you elaborate on 
your goals for command and control, and how ACC and ESC are working 
together to meet these challenges?
    General Jumper. Senator, my goal for command and control (C\2\) is 
to have a C\2\ system that effectively commands airpower. Several 
capabilities and concepts will contribute to that end. A primary 
objective is to provide decision-quality information to the right 
warfighter at the right time. Collection and dissemination of that 
information is the first step to accomplishing this objective and calls 
for several ISR platforms to be integrated into a Multi-sensor Command 
and Control Constellation (MC\2\C). Today, this means legacy air and 
space platforms collect order-of-battle data sufficient to refine 
target lists. In the future, this phase will take advantage of 
platforms that integrate and dialog at the machine level. To the extent 
technology allows, a Multi-Sensor Command and Control Aircraft (MC\2\A) 
will perform most of the surveillance, reconnaissance, and C\2\ 
functions that currently require several specialized platforms. When 
the MC\2\A is teamed with UAVs, such as Global Hawk, and mechanized to 
interact directly with space platforms, the power of machine-level 
integration will close the seams that currently delay our ability to 
precisely locate and identify critical targets.
    The power of integrated ISR will expand as we develop our 
predictive analysis tools. Horizontally integrated ISR, combined with 
these predictive tools, will take the concept of intelligence 
preparation of the battlefield into an emerging concept called 
Predictive Battle-space Awareness (PBA). This concept will allow a 
shift of ISR platform utilization from collection, used for pure 
discovery, to targeting those events that our predictive power leads us 
to anticipate. We are aiming for a forensic-level understanding of the 
battle space in all dimensions.
    Pivotal to commanding the rapid and dynamic air operations likely 
to be experienced in the future, we have developed a Combined Air 
Operation Center Experimental (CAOC-X) to integrate the analyzed 
information in a timely fashion in order to command airpower at the 
operational level of war. Within the CAOC-X, the fusion of decision-
quality information derived from PBA and collected from a MC\2\C will 
ensure a Joint Force Air Component Commander (JFACC) has the 
capabilities to employ airpower in the most effective manner.
    ACC and ESC have teamed together to develop and implement many of 
these capabilities. The CAOC-X offers an outstanding example of how ESC 
and ACC are working together. We bring together our operational 
warfighters, developers from ESC, and the test community to develop 
C\2\ applications and systems in a spiral fashion so that solutions 
delivered to the warfighter reflect current technology. For example, we 
took the concept for a common coalition C\2\ system developed by 
CENTCOM's Air Component, CENTAF, and made that a reality within months 
of being handed the concept. I see synergy in the relationship between 
ACC and ESC, and that synergy ensures we'll keep our advantage in C\2\ 
and remain the force that can move the quickest, smartest and with 
greatest lethality when called upon to accomplish our Nation's 
objectives.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                               bandwidth
    2. Senator Reed. General Jumper, as we enter the 21st century, 
there is competition between the military's use of bandwidth for 
communications and radars and commercial needs. This competition has 
resulted in military limitations, waivers for usage, and contingency 
planning for loss of rights over bandwidth. Depending upon the course 
selected, the military could be facing a huge bill to re-engineer 
systems to different frequencies. What is your viewpoint on this issue 
of bandwidth and how would you approach this issue as Chief of the Air 
Force?
    General Jumper. The critical decision on the 1755-1850 MHz band 
should be made only after a thorough analysis of the risks. The 
analysis needs to be comprehensive and include not only DOD satellites, 
but also non-space systems and capabilities essential to military 
operations. Unimpeded access to the electromagnetic spectrum is 
absolutely critical to the success of our Air Force. It is the backbone 
for our Nation's current information superiority. The potential loss of 
1755-1850 MHz would cause a loss of ability to command and operate over 
120 military satellites essential for national security. The Air Force 
uses this spectrum to gather intelligence, conduct combat training on 
our ranges, deliver precision-guided weapons, and assess battle damage. 
It is integral to our ability to command air and space power. As Chief 
of Staff, I will actively work with our sister services and all 
applicable agencies and departments to ensure continued access to the 
frequency spectrum for the Air Force.

                            space commission
    3. Senator Reed. General Jumper, could you discuss your view of the 
Secretary's decision to implement the recommendations of the Space 
Commission? How do you think this initiative will impact the Air 
Force's roles and missions? Do you see any issues/problems that might 
occur with the relationship between the Air Force and the other 
services over the roles assigned to the Air Force from this commission?
    General Jumper. The Space Commission recommended, among other 
things, that the Air Force be assigned as the executive agent for 
Department of Defense Space Planning, Programming, and Acquisition. In 
the Secretary of Defense's 8 May response to Congress, he agreed with 
the Commission's recommendations. The Air Force is in the process of 
implementing the SecDef's direction. Our efforts will lead to more 
operationally effective and efficient space capabilities for the Air 
Force, the other Services, and the Joint warfighter. This new focus and 
priority will lead to enhanced capabilities in the mission areas of 
force enhancement, space control, space support, and force application. 
While the Air Force has provided the preponderance of space 
capabilities and expertise for decades, we welcome the formal role and 
responsibilities of the executive agent for space. The Services 
specific roles and responsibilities still need to be worked out in 
detail, but we are confident that by working through multi-Service 
organizations, we can act together to provide better and new space 
capabilities to the Joint Team, the National Command Authorities, and 
the Nation. Additionally, we will assess the specifics of realigning 
Air Force Space Command headquarters as well as the other initiatives 
outlined in the Space Commission's report. The Air Force is anxious to 
lead these important Department of Defense space initiatives.
                                 ______
                                 
               Question Submitted by Senator Mark Dayton
                           148th fighter wing
    4. Senator Dayton. The Air National Guard Bureau informed me that, 
by fiscal year 2003, Minnesota's 148th Fighter Wing in Duluth will 
receive 17 Block 30 F-16C aircraft currently located at Cannon AFB, New 
Mexico. I was assured that these aircraft would undergo all the CUPID 
modifications scheduled for the F-16C fleet prior to the aircraft being 
transferred to the 148th. Moreover, I understand that the aircraft will 
also receive the FALCON-UP structural modifications before arriving in 
Duluth. Could you please respond to the above information and confirm 
that it accurately represents the Air Force's commitment to the 148th 
Fighter Wing?
    General Jumper. Your information accurately represents the Air 
Force's commitment to the 148th Fighter Wing. The 148th Fighter Wing 
will receive F-16 Block 30 aircraft. The last of these aircraft are 
currently receiving FALCON-UP structural modifications. The CUPID, 
Combat Upgrade Plan Implementation Details, modification program will 
be complete in fiscal year 2002.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman
                     air national guard and reserve
    5. Senator Bingaman. General Jumper, could you please provide the 
committee with your overall assessment of the value and performance of 
the Air National Guard and the Air Reserve in meeting Air Force 
operational goals and requirements?
    General Jumper. The Air Force cannot complete its mission 
successfully without our air Reserve component. The Air National Guard 
and Air Force Reserve are full partners in the AF's corporate 
programming and budget process. Additionally, Guard and Reserve units 
participate in combat and combat support operations on a daily basis. 
Fully 24 percent of our deployed expeditionary forces are from the 
Guard and Reserve. This is a level of support that is higher than 
during the middle of Desert Storm, and they sustain that now on a daily 
basis. Additionally, the Guard and Reserve participate in all major 
contingencies, exercises, and competitions while serving as the 
linchpin for our humanitarian efforts and virtually all our North 
American Air Defense efforts.

    6. Senator Bingaman. General Jumper, there are 20 Fighter Wing 
equivalents in the Air Force and approximately 7 in the Guard and 
Reserve. What is the mix within the Guard and Reserve?
    General Jumper. Senator Bingaman, the mix within the Reserve 
component is approximately 6 Fighter Wing Equivalents in the Guard and 
1 in the Reserve.

    7. Senator Bingaman. General Jumper, Secretary Roche recently 
testified to the committee that fighters would stay in the National 
Guard. What are your plans in this regard? What are your plans 
regarding integration of the Guard, Reserve, and active forces in other 
Air Force mission areas?
    General Jumper. Our intent is to maintain a healthy balance between 
Active, Guard, and Reserve fighter forces. Our force structure today 
supports the steady-state contingency deployment requirements of the 
Air Force in its responsibilities to National Defense, using the 
current Air Expeditionary Force (AEF) construct to support steady-state 
contingency operations. Any substantive change in our total fighter 
force structure, or any other mission areas, will require us to address 
this balance to ensure we maintain supportable force structure that 
sustains our AEF.

    8. Senator Bingaman. General Jumper, given the importance of Guard 
and Reserve units and the reality of a constrained budget, could you 
please provide the committee with an outline of the current or most 
recent Air Force plans to modernize, train, and equip Guard and Reserve 
units during the Future Years Defense Plan period? Please provide 
specific information with regard to quantity and types of aircraft and 
their modifications, training hour goals and funding, and other major 
equipment and facility upgrades or expansions that are planned.
    General Jumper. Air Combat Command, as the lead command for combat 
aircraft in the Combat Air Forces (CAF), manages the modernization of 
all fighter and bomber aircraft, including the ANG and AFRC. Current 
plans for modernization of all fighters and bombers, including those 
assigned to the ANG and AFRC are listed. The Future Years Defense Plan 
includes datalink and smart weapons integration on the entire AoA-10 
fleet at a cost of $320 million. Engine sustainment and radar upgrades 
on all F-15A/B aircraft are programmed at $600 million. All F-16 
aircraft are scheduled for structural updates, datalink capability, 
Joint Helmut Mounted Cueing System (JHMCS) capability, threat warning 
and engine safety upgrades, and targeting pods at a cost of $1.6 
billion. The B-52 aircraft will receive new inertial navigation system 
upgrades at $300 million.
    The ANG and AFRC are fully funded and capable of executing their 
flying hour programs that permit them to achieve all their training 
objectives. Additionally, there are programmed actions that will ensure 
all ANG F-15A/B units receive upgraded F-15C/D model aircraft as the F-
22 is delivered. Also, all F-16A combat units are scheduled to convert 
to the F-16C not later than fiscal year 2003. ANG and AFRC MILCON 
projects compete in conjunction with Active Duty projects for a Total 
Force ranking ensuring that the highest priority projects receive 
funding whether ANG, AFRC or Active Duty.

    9. Senator Bingaman. General Jumper, as Chief of Staff of the Air 
Force, are you committed to continue your direct involvement, 
communications, and use of the Air National Guard and Reserve within 
the context of the Total Air Force?
    General Jumper. Yes. We cannot complete our mission successfully 
without them.

    10. Senator Bingaman. General Jumper, could you please provide the 
committee with your assessment of implementation of the Expeditionary 
Air Force (EAF) and its impact on Air Force personnel and their 
families?
    General Jumper. The implementation of the EAF has had a profound 
impact on airmen and their families. As an inclusive concept that seeks 
to bring all Air Force deployable capabilities into the rotational 
schedule to handle our steady-state contingency commitments, active 
duty personnel tempo has decreased by approximately 20 percent from our 
previous deployment concept. Also, the EAF 10-month train-to-task 
preparation time has made our airmen teams better prepared, focused and 
more confident in their ability to get the job done while forward 
deployed.
    As more active duty and Reserve component airmen experience combat 
missions at our overseas locations, their enthusiasm for remaining in 
the AF also grows. Consequently, these experiences have allowed us to 
turn the corner on retention and re-enlistment rates. Of course many 
factors have improved our airmen's lives and future careers, but 
providing a predictable and stable schedule has become a significant 
factor in our retention efforts.
    Scheduling predictability has also allowed families to plan and 
commit for the future as never before. Families can now commit to a 
vacation or family event with more certainty. Personal education plans 
for members and spouses now become possible. Airmen can now plan and 
prepare for their next promotion testing cycle. In short, placing the 
entire Air Force on a rhythmic, predictable EAF schedule is slowly but 
positively changing what it means to live, work, and succeed in the Air 
Force.

    11. Senator Bingaman. General Jumper, how do the Air National Guard 
and Air Force Reserve fit into the EAF strategy? Do they help relieve 
Air Force optempo and perstempo? Are the Guard and Reserve important 
elements of the EAF? Could the Air Force meet worldwide commitments 
without them?
    General Jumper. The Guard and Reserves are critical participants in 
our global engagement strategy. They provide and operate approximately 
24 percent of our deployed aircraft and 10 percent of our deployed 
combat support. Because of that unprecedented involvement, the ARC has 
saved nearly 7000 active-duty 3-month deployments each 15-month cycle. 
ARC involvement also means that world events have more meaning to more 
people in a positive way if their employee/neighbor is in the Guard or 
Reserve. This long term, large-scale assistance to the active duty 
force and our country is critical. We cannot meet our global 
commitments while maintaining a quality, Active-Duty Force without 
their voluntary participation.

                                 combat
    12. Senator Bingaman. General Jumper, what is your definition of 
``combat'' as applied to Air Force assets?
    General Jumper. NCA authorities call on the military, in 
conjunction with other instruments of national power, to achieve 
specific policy objectives. For the Air Force, combat is just one 
portion of the spectrum of military operations. When we approach any 
military operation, combat/conflict may be right around the corner. To 
simply define an asset as a combat coded asset denigrates the full 
range of options that asset can perform. Rather, we approach each 
military operation with an understanding of how that asset contributes 
to achieving the desired military effect (be that attacking industrial 
centers, enemy fielded forces, or airlifting supplies to remote 
villages in need of aid). It is counter-productive to define the term 
combat and delineate between combat and noncombat assets when Air Force 
assets perform missions that span the entire spectrum of military 
operations.

    13. Senator Bingaman. General Jumper, what is your view of Guard 
and Reserve capabilities, including ``combat''? Where has the Air Force 
called on Guard and Reserve fighter units to serve during the past 15 
years and how have they performed? Do you intend to revise or otherwise 
assign different combat roles to active, Reserve, and Guard units in 
the future?
    General Jumper. Senator Bingaman, unlike the Vietnam era, when they 
flew older model aircraft, today's Guard and Reserve Forces fly nearly 
the same aircraft as active duty units. They use the same flying 
regulations and have essentially the same training requirements in 
their Ready Aircrew Program (RAP) criteria. While the total number of 
sorties required by RAP tasking for ARC units is slightly lower than 
that required of active duty units, this is more than offset by their 
higher experience levels. I consider them equally capable. Over the 
past 15 years, Guard and Reserve units have participated in a number of 
combat operations. Reserve component units were activated for Desert 
Storm and Allied Force. They have provided units on a volunteer basis 
for Operation Just Cause in Panama, Operation Provide Comfort, 
Operations Northern and Southern Watch, and Operation Deny Flight. In 
all cases, their performance has been indistinguishable from that of 
their active duty counterparts. Indeed, I believe the Air Force Reserve 
component forces are an integral part of the AEF. All in all, ARC 
members have reduced active duty combat support requirements by 10 
percent. In addition, the ARC AEF aviation contribution has reached an 
unprecedented 24 percent of current steady state requirements during 
``peacetime.'' The Air National Guard and the Air Force Reserve fighter 
forces are an essential element of aerospace combat power. I don't see 
how we can operate without them. Not only do they provide the requisite 
force structure for meeting U.S. responsibilities around the world, 
they also capture and retain valuable rated experience that would 
otherwise be lost as pilots leave the active force for other 
occupations. I expect Guard and Reserve combat units to continue as an 
integral part of the Total Force for the foreseeable future.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                             space programs
    14. Senator Warner. Some Air Force critics have contended that the 
Air Force is too focused on aircraft programs and is not providing 
enough support to space programs. Yet, the Rumsfeld Space Commission 
recommended that responsibility for management of space programs and 
activities should be concentrated to an even greater extent than 
previously in the Air Force, and that the Under Secretary of the Air 
Force should serve as the acquisition executive for DOD space programs. 
This has led to concerns in the Army and Navy that their service unique 
space interests might not be well protected. How will the Air Force 
coordinate with the Army and Navy to ensure that Army and Navy equities 
in space programs and activities are protected?
    General Jumper. The Department of Defense is implementing a number 
of recommendations from the Space Commission that will significantly 
enhance the integration and coordination of all the Department's space 
activities. The Air Force sees itself as a leader in this process, and, 
as the executive agent for space in the Department of Defense, will 
have specific responsibilities in the planning, programming, and 
acquisition of space capabilities. The Air Force will have overall 
responsibility for most Department of Defense space development and 
operations, but expects all Services and Agencies to continue to be 
responsible for integrating space capabilities into their forces and 
fielding any Service-unique space capabilities. The Air Force will lead 
these activities with the full cooperation and involvement of all the 
Services, Agencies, and the Joint community. By using organizations 
such as the Joint Staff, U.S. Space Command, the National Security 
Space Architect, and others, we will ensure that the equities of every 
member of the defense space community are protected.


    15. Senator Warner. The Rumsfeld Space Commission recommended that 
the Department of Defense and the intelligence community create and 
sustain a cadre of space professionals capable of developing complex 
space system technologies, developing doctrines and concepts for space 
operations, and operating space systems. Do you believe that this is an 
important goal?
    General Jumper. Yes. The demands for integration of space 
capabilities and information for modern warfighting will continue to 
grow in the future. It will be essential that all the services 
understand how to integrate space into combat operations. We must 
remain at the forefront of new technologies and fully integrate them 
into doctrine, operational concepts, and procedures.


    16. Senator Warner. General Jumper, would you recommend that the 
Air Force support the development of a cadre of space professionals, 
and if so, how?
    General Jumper. Our future leaders will need to be better prepared 
to field, integrate and employ highly complex space systems. We will 
look into the Space Commission's suggestions to create a Space Corps 
and determining--the best path for the Air Force. One option may be to 
send our warfighters through specially designed training, education and 
career paths so they can better employ space capabilities and integrate 
space operations with air, land, and sea operations.

                               readiness
    17. Senator Warner. Over the last few years we have seen increasing 
evidence that the readiness of the U.S. Armed Forces has begun to 
deteriorate as a result of the over-commitment of an under-resourced 
Department of Defense. The Air Force submitted a $95.7 billion request 
as part of the Department of Defense's Fiscal Year 2002 amended budget 
submission. At the request of this committee, the Air Force submitted 
an unfunded priority list for an additional $9 billion. Does the fiscal 
year 2002 budget contain sufficient resources to meet your requirements 
for readiness and modernization? Will these increases be enough to 
avoid the need for a fiscal year 2002 supplemental? 
    General Jumper. Sir, let me address the readiness issue first--the 
short answer is no. Based upon a particular number of units being ready 
for universal deployment within a timeframe of 30 days, our goal is a 
readiness rate of 92 percent. Since 1996 we have experienced a decline 
of 23 percent to a 68 percent level of readiness as of April 2001. This 
is lower than at any time since 1987. The resources the Air Force has 
directed toward readiness over the past few years have gone a long way 
toward slowing the decline in our readiness rate, but we still have a 
great deal to do to get that rate back to a historically acceptable 
level.
    The cost of infrastructure exacerbates this problem. Over the past 
few years the infrastructure replacement rate for the Air Force has run 
between 200 and 250 years. This is in contrast to the accepted business 
model of 50 to 60 years. We will obviously be unable to increase our 
readiness to a comfortable level and generate the required 
infrastructure enhancements within a single budget cycle.
    Addressing the modernization issue, the story is much the same. The 
average age of Air Force aircraft has increased to 22 years and will 
continue to rise over the next 20 years to approach an average age of 
30 years. Flying hour costs, due both to increased cost of fuel and the 
fact that older aircraft simply require more intense and frequent 
maintenance, has gone up almost 45 percent in the last 5 years. Last 
year we spent 103 percent of our flying hour budget on only 97 percent 
of our flying hour requirement. Again, the answer is no.

    18. Senator Warner. General Jumper, how will the fiscal year 2002 
budget request address your service's most pressing near term readiness 
needs?
    General Jumper. The plus-up made significant contributions in the 
areas of flying hours, OPTEMPO, Training and Ranges, Low Density/High 
Demand (LD/HD) assets, and Contract Logistics Support (CLS). We still 
find ourselves underfunded in the areas of mission support, base 
operating support (BOS), communications, and real property maintenance 
(RPM). Additionally, we still have a need to fix readiness shortfalls 
in personnel, skills, munitions, bare-base assets and vehicles. Our 
immediate requirement is to ensure that we have enough people to do the 
job and that those people have the proper training and the assets they 
need to do the job. We have addressed our most pressing needs but still 
have a long way to go to put USAF readiness back on a solid footing.

                         science and technology
    19. Senator Warner. As you may be aware, the Air Force Science and 
Technology program has suffered tremendous atrophy over the past 
several years. Congress is particularly concerned that the Air Force 
has reduced it S&T program from the largest of the three military 
service programs to the smallest since fiscal year 1989, the Air Force 
S&T investment is down by 46 percent. How do you plan to turn around 
the Air Force's science and technology program?
    General Jumper. The USAF has recently expressed interest in 
increasing its Science and Technology (S&T) investment by providing 
additional fiscal year 2002 funding in the 2002 President's Budget 
Request. Program Budget Decision (PBD) 803 resulted in a net increase 
of nearly $83 million to the AF S&T line. This brings S&T funding to 
approximately 1.7 percent of the AF Blue Total Obligation Authority 
(TOA). Our goal is to grow S&T funding to between 2.0 percent and 2.4 
percent of AF Blue TOA.
    Historically, AF S&T technologies have formed the foundation for 
the Air Force's military successes in the last fifty years. The 
contributions of these technology transitions span several decades. For 
example, in the 1970s to 1990s, AF S&T investment transitioned 
approximately $900M of technology to the F-22. This investment enabled 
advancements such as Stealth, Composite Structure, Supercruise Engines, 
Thrust Vectoring, Integrated Flight Controls, and Weapons Launchers, to 
name a few. AF S&T has made significant contributions to Defense-wide 
applications in areas such as Global Positioning System (GPS), Low 
Observables, Precision Navigation, Smart Munitions, Airborne Command 
and Control, Global Communications, and Battlefield Management. Present 
transitions from S&T will enhance C-17 survivability, the Unmanned 
Combat Aerial Vehicle, and advanced, more efficient fuels and engines 
for JSF.
    New technologies on the horizon today, in areas such as directed 
energy, biotechnologies, information, and space, will give us the same 
opportunities to revolutionize today's aerospace force that stealth 
technologies did 20 to 30 years ago. To achieve the Air Force vision 
for Global Reach, Global Power, and Global Vigilance we will require a 
healthy investment in AF S&T. Therefore, I agree that increased 
investment is important to the Air Force.

                     airborne reconnaissance assets
    20. Senator Warner. The Air Force, like all the other services, has 
experienced a high operational tempo over the past decade. We have 
become familiar with a new term--high demand, low density. One of the 
best examples of this phenomenon are our airborne reconnaissance 
assets. They are in such demand for peacetime vigilance and for 
military operations, but we have a very finite number, and like all 
military aircraft, are showing signs of age. What are your plans for 
modernizing our ISR fleet?
    General Jumper. Modernization of ISR is needed to keep pace with 
the changing strategic environment and emerging threats. ISR is an 
enabler that cuts across the full spectrum of operations from peacetime 
to full-scale combat at every level of war. My vision is to field a 
constellation of manned, unmanned, and space systems that are 
interoperable with other joint and National ISR assets. The 
constellation approach is not focused on a single platform, but is a 
system of systems that is horizontally integrated with machine-to-
machine interfaces that automatically turn sensor data into decision 
quality information. In addition to the ability to collect, we need a 
robust command and control capability for tasking this constellation 
and processing and exploiting the data, and the communications to 
rapidly disseminate it. The constellation will be fully integrated into 
the Combined Aerospace Operations Center where the information will be 
presented for the warfighting commanders to act upon. Key to the future 
of information operations is the development of the art and science of 
Predictive Battlespace Awareness, where we move away from pure 
discovery based on Intelligence Preparation of the Battle Space (IPB) 
and develop the ability to predict the enemy actions.
    Some ISR capabilities will migrate to space as the pace of 
technology and funding allows. Although, our current manned airborne 
platforms are characterized as low density/high demand (LD/HD), we will 
continue to require manned airborne systems in the foreseeable future 
to maintain flexibility and persistence over the battlespace. We are 
leading our initiation into UAV operations by starting with ISR and are 
in concept development for other combat missions. We began by building 
a concept of operations for a network-centric architecture where a 
specific sensor or platform is not the overriding concern but fusing 
and correlating data where it is seamlessly pushed or pulled between 
nodes depending on the information needs of specific users. We are 
looking at recapitalizing our aging C\2\ISR aircraft as we are facing 
increasing costs to sustain and modernize them. My vision is to put as 
many of the present and future ISR capabilities as technology will 
allow on a common, commercially derived platform that will serve as the 
basis for both a new tanker and a new consolidated ISR platform. The 
constellation with leading edge sensors, networked operations, 
innovative processes and state of the art tasking, processing 
exploitation and dissemination will transform our ISR capability and be 
the critical force multiplier and enabler for making Global Strike Task 
Force a reality.

    21. Senator Warner. General Jumper, have issues associated with the 
retention of pilots and analytical personnel] associated with these 
assets been solved?
    General Jumper. Within the Air Force, retaining the right mix of 
people associated with these high-demand, low-density weapon systems 
has become increasingly difficult. Many of these issues have been 
addressed but not yet resolved. Our expeditionary mission and complex 
weapon systems require an experienced force, and we depend on our 
ability to attract, train and retain high quality, motivated people to 
maintain our readiness for rapid global deploynent. While patriotism is 
the number one reason our people, both officer and enlisted, stay in 
the Air Force, the constant ``push'' and ``pull'' factors that 
influence career decisions put our human resources at risk. We expect 
the ``pull'' on our skilled enlisted members to leave the Air Force to 
persist. Businesses place a premium on the skills and training our 
people. In fact, exit surveys indicate the availability of civilian 
jobs is the number one reason our people leave the Air Force. In 
addition to the ``pull'' from the civilian sector, factors such as 
manning shortfalls, increased working hours and OPTEMPO continue to 
``push'' our people out of the Air Force. We fight back with retention 
initiatives that address the factors that influence the career 
decision. Current initiatives include initial enlistment and selective 
reenlistment bonuses specifically designed to attract and retain our 
enlisted personnel; enhanced compensation in the form of targeted pay 
raises; and increased flight and aviator continuation pay. We are 
making progress with these programs but there is still work to be done.

    22. Senator Warner. The Air Force has continued to experience 
problems with retaining pilots and career NCOs. There is no question 
that industry highly values the skills and experience of our career NCO 
force. Similarly, the airlines seem to have a never ending ``jobs 
available'' notice out for military pilots. While pilot retention may 
be ``leveling out,'' i.e., the decline has been arrested, what are the 
facts regarding pilot retention?
    General Jumper. Senator Warner, current Air Force pilot production 
roughly equals our losses, but over the next several years we expect to 
make modest gains in the overall pilot shortage. Fiscal year 2001 
projections for the Air Force indicate a shortage of 1190 pilots. By 
fiscal year 2010 we expect that number to shrink to 730, but almost all 
of these will be in the fighter and bomber weapon systems. The Air 
Force pilot shortage is a long-term problem that we will remain focused 
on for at least the next decade. To date, 27.5 percent of this year's 
initially eligible pilots have accepted a long-term pilot bonus that 
will keep them in the service for a minimum of another 5 years.

    23. Senator Warner. General Jumper, what officer/pilot communities 
within the Air Force have been hardest hit, and what do you plan to do 
to address this problem?
    General Jumper. In the Air Force pilot community, fighter and 
tactical airlift weapon systems requirements are currently filled at 88 
percent and 89 percent respectively. While we maintain 100 percent 
manning within the operational. units, the shortage of available 
personnel is felt most acutely at the staff level, as many billets 
remain unfilled. To correct this, the Air Force will maintain its 
current pilot production of 1,100 per year and continue other retention 
initiatives, such as the bonus, in order to fill our currently empty 
billets.
    Within the non-rated community, mission support officers are 
currently manned at 92 percent of requirements, but extreme demographic 
imbalances exist within this number. Many experienced officers are 
exiting the Air Force, requiring us to use an excess number of junior 
officers to fill the empty billets. Currently, Captains, Majors, and 
Lieutenant Colonels are manned at levels below 80 percent of 
requirements and Lieutenants are manned in excess of 200 percent of 
requirements. The correction for this demographics problem is a 
combination of retention, quality of life, and personnel management 
initiatives. Over time, through these efforts, the Air Force will 
overcome these imbalances.

    24. Senator Warner. General Jumper, what initiatives are you 
considering to improve retention of our experienced NCOs?
    General Jumper. The factors that cause low retention include wages, 
high OPTEMPO, reduced quality of life, and leadership. The primary tool 
to mitigate low retention amongst our experienced NCOs is the Selective 
Reenlistment Bonus, which offers a bonus to 76 percent of our enlisted 
skills. We continue to look for initiatives to improve retention. 
Recently, during a Retention Summit, the Air Force approved several 
initiatives, which include the creation of a Career Assistance Advisor 
position, Patient Advocates, a Retention Toolkit for advisors and 
commanders, enhanced Spousal Employment Program, subsidized in-house 
child care in support of extended hours, studies on NCO re-training, 
improved enlisted bonuses, pay structure enhancements, and Montgomery 
GI Bill/Tuition assistance.

                     manned reconnaissance aircraft
    25. Senator Warner. General Jumper, what is your view concerning 
the future of manned reconnaissance aircraft?
    General Jumper. Our ISR assets are on duty every day whether we're 
at peace or in combat. We've found they are actually more stressed 
during peacetime than during actual contingency operations. Manned 
reconnaissance is a key element of our total ISR capability and will 
continue to be for the foreseeable future. Many functions, such as real 
time Communications Intelligence done with linguists, require manned 
aircraft solutions. We are looking hard and analyzing which 
capabilities can be migrated to UAVs and space, but there are some 
significant threats that have caused us to spend large S&T funding on 
highly classified capabilities for these airborne platforms. There are 
also definite technological reasons that don't allow us to migrate some 
of these capabilities to space and drive us to continue fielding these 
new capabilities on large manned aircraft.
    That brings us to the issue of the aging manned ISR fleets. We're 
at an average age of 35 years with these assets and the increasing 
costs of sustaining and modernizing them is a major concern. We are on 
the threshold of a new generation of sensors and I think it prudent 
that we study a new aircraft to field these new systems that will allow 
us to achieve our vision of a horizontally integrated architecture. To 
the extend that technology will allow, we are looking at consolidating 
the missions of five different ISR aircraft onto a new wide-body 
aircraft that can also provide a platform for a new Tanker. This 
consolidation will serve to ease the LD/HD burden with an open 
architecture system of configurable avionics. Depending on the mission 
of the day for that aircraft, the crew can be tailored accordingly. The 
increased capability envisioned for this new aircraft as a C\2\ and ISR 
asset will provide the ability to operate in the dynamic battle and 
allow us to pursue the hardest target sets (i.e. SAMs and SCUDs) that 
we characterize as time critical targets. The critical C\2\ and ISR 
functions performed on today's manned systems are still required and 
will be even more robust on future manned aircraft.

    26. Senator Warner. Much has been discussed in recent years about 
asymmetric threats and the changing nature of warfare. Specifically, 
many are concerned about potential adversaries who would atternpt to 
deny us the use of forward airfields and seaports that have been such a 
critical part of recent military operations. What is your vision of how 
the Air Force can respond to the limited availability of forward 
airfields?
    General Jumper. The Global Strike Task Force (GSTF) will rapidly 
establish air dominance and subsequently creates the conditions to 
guarantee that joint aerospace, land, and sea forces will enjoy freedom 
from attack and freedom to attack. GSTF is the next step in our 
Expeditionary Aerospace Force (EAF) evolution; its focus is to rapidly 
roll back the emerging access threats that might prohibit friendly 
freedom of action and improve our ability to employ the effects of 
sustained persistent air operations, as guaranteed by our Aerospace 
Expeditionary Force (AEF) construct. While it is forged from the 
experience we gained in the past decade, it also looks forward to 
future challenges affecting our ability to employ joint forces. GSTF 
offers our nation a new capability allowing assured access to achieve 
the combat effects our nation needs.
    The F-22 is key to expanding the B-2s stealth advantages beyond 
moonless-night-only operations; indeed, 24-hour-a-day operations will 
be possible. F-22s will pave the way for the B-2 and other bomber 
``heavy lifting'' from extended ranges by providing initial local air 
superiority through the traditional ``sweep'' role and through air-to-
ground targeting of the enemy's air defense network. The unparalleled 
combination of stealth with supercruise will reduce threat rings, 
allowing it to establish air dominance and deliver its near-precision 
weapons deep inside enemy territory.
    Implied within GSTF is the ability to command and control rapid and 
dynamic operations as well as support a vigorous air refueling 
requirement. Advances in our Combined Air Operations Centers, and our 
ability to push decision quality information to the warfighter, are key 
components as is the leveraging of reachback and information technology 
advances.
    Thus, with F-22s and B-2s, the GSTF will be crucial to the joint 
team's capability to overcome enemy attempts to deny access. Joined 
with other standoff and special-operations capability, GSTF will 
provide a capacity to systematically destroy hundreds of targets, 
negate enemy anti-access systems, and clear the way for follow-on 
forces in the first days of the conflict. In subsequent days, bombers 
will orbit in combat air patrols, awaiting tasking for fixed and time-
critical targets located and identified by our Multi-mission Command 
and Control Constellation (AWACS, Rivet Joint, JSTARS, Global Hawk, 
Satellites, etc. working together to collect order-of-battle data 
sufficient to refine target lists).
    Once anti-access targets are negated, sustained AEF airpower, 
including the Joint Strike Fighter (JSF) in the air-to-ground and 
suppression-of-enemy-air-defenses roles, and non-stealthy fighters with 
precision-attack capability, along with joint and allied forces, will 
roll into the fight as the threat diminishes, beddown locations open, 
and survivability increases. These persistent operations will provide 
continuous presence over the battlefield; the presence required to 
sustain full-spectrum joint and combined operations, such as the 
targeting of time-critical mobile targets. The combination of the 
``kick-down-the-door-force'' and the persistent force will compress 
airpower operations to overwhelm enemy decision-making resulting in the 
expeditious completion of military operations.
    In sum, GSTF is a rapid-reaction, leading edge, power-projection 
concept that delivers massive around-the-clock firepower. GSTF empowers 
us to overcome barriers while providing the means to rapidly negate 
adversary threats. It will mass effects early with more precision, and 
fewer platforms, than our current capabilities and methods of 
employment; it will give adversaries pause to quit and will virtually 
guarantee air dominance for our CINCs.

                          strike capabilities
    27. Senator Warner. General Jumper, are you satisfied that the 
investment in short-range tactical aircraft and long-range strike 
capabilities is properly balanced?
    General Jumper. Determining the correct number of aircraft will be 
dependent on the findings of the QDR. Until that time, we will continue 
to analyze the geo-political environment and determine the capabilities 
necessary, to attain the effects desired across the entire spectrum of 
military operations. However, I believe that we need to address some 
serious funding issues that may affect the future. We need to fund the 
F-22 program at the appropriate level to ensure air dominance in all 
future conflicts. Simply cutting force structure to solve cost overruns 
reduces operational flexibility. We also need to keep the Joint Strike 
Fighter program on track to ensure a timely replacement for both the F-
16 and A-10 to avoid shortfalls in the fighter force structure.
    Long-range bomber aircraft also face capability shortfalls if 
funding falls below what is necessary to keep our fleets viable. Enemy 
defensive systems continue to improve; therefore airborne systems need 
to keep pace to be survivable. Improvement in low observable materials, 
on and off-board defensive systems, and maintaining the right mix of 
standoff and direct attack munitions for both fighter and bomber 
aircraft is critical to maintaining combat superiority in future 
conflicts.

                            joint operations
    28. Senator Warner. Over the past two decades, our ability to plan 
and, ultimately, execute joint military operations has improved 
significantly. However, post operational reviews regularly point out 
continuing problems with interoperability of service weapons systems, 
and command and control systems. Are you satisfied that the Air Force 
is making all prudent efforts to ensure its weapons. and information 
systems are fully interoperable and integrated to best serve the joint 
force commander?
    General Jumper. As the Air Force develops and procures new weapon 
systems our Operational Requirements Documents (ORD) stipulate a Key 
Performance Parameter (KPP) addressing interoperability. Additionally, 
new weapons being brought into service are ``Joint'' systems, for 
example Joint Direct Attack Munition (JDAM), Joint Standoff Weapon 
(JSOW), and the Joint Air-to-Surface Standoff Missile (JASSM). Our 
newest systems under development are going to great lengths to insure 
other services' requirements are being considered for interoperability. 
In the case of the Joint Strike Fighter (JSF), within the 
Interoperability KPP, there are 142 Interface Exchange Requirements 
(IERs) identified with 61 of those IERs categorized as critical. 
Interoperability enables the Joint Force Commander (JFC) to call for an 
effect without regard to which service may provide it.
    Our Nation's Air Forces now share a common set of weapons. Two such 
weapons, HARM and AMRAAM have already proven the importance of 
interoperability with their success in both the Gulf War and in Kosovo. 
In these conflicts, U.S. as well as allied Air Forces employed both 
missiles to protect our force against enemy surface to air missile 
systems and air threats. The JFC asked for a combat effect (protection 
of our forces) that was ultimately supplied by several branches of our 
Nation's Air Forces. Further, the Air Force works with CJCS J-6 to 
ensure that our new information systems satisfy interoperability 
requirements. As a recent example, our new Theater Battle Management 
Corps System (TBMCS) can pass planning and reporting information 
directly to our sister services' Global Command and Control Systems 
(GCCS). We are committed to ensuring seamless connectivity with service 
and allied platforms as we modernize with tactical datalinks such as 
Link-16--the DOD and NATO standard. We are building a tactical datalink 
roadmap that incorporates DOD guidance to ensure interoperability as we 
field this powerful combat multiplier.
    Additionally, the Air Force is working to define requirements for 
``gateways'' that provide connectivity between Link-16 and otherwise 
non-interoperable datalinks such as the Situational Awareness Datalink 
(SADL), even as we migrate all of our warfighting platforms to Link-16.
    Finally, we are also implementing processes that provide ``cradle 
to grave'' tactical datalink interoperability management of our weapons 
systems--Through Life Interoperability Process (TULIP). I believe that 
interoperability is paramount to the success of any system we develop 
or consider in order to fully leverage our Nation's combat assets.

                           goldwater-nichols
    29. Senator Warner. The Goldwater-Nichols legislation is now almost 
15 years old. I think most will agree it has had a profound, positive 
effect on the armed forces. Two weeks ago, we asked all the service 
chiefs to comment on needed improvements or changes to ensure the 
continuing viability of this legislation. In your view, what changes or 
improvements are needed to update and enhance the original Goldwater-
Nichols legislation?
    General Jumper. I am aware that there are a number of proposals to 
continue the advancements we've made under the Goldwater-Nichols 
legislation. Some have suggested we need to make changes with the 
training of personnel assigned to the Joint Staff, and perhaps also 
adjust its size and responsibilities. Others have commented on what 
they see as a need to restructure the joint acquisition programs and 
planning processes. I have not yet formed an opinion on the 
appropriateness of these concepts and I am confident I will hear still 
more proposals as I take on my new responsibilities. I look forward to 
working with Congress to build on the solid foundation that Goldwater-
Nichols has provided to the Department of Defense and our Air Force.

                            force protection
    30. Senator Warner. On April 25 of this year, Deputy Secretary of 
Defense Wolfowitz submitted to Congress a report--mandated by last 
year's Defense Authorization bill--which addresses the preparedness of 
military installation first responders to react to incidents involving 
weapons of mass destruction. The report stated that the ``Air Force 
program deficiencies include a lack of policy and guidance, an 
integrated training and exercise program, and first responder 
equipment.'' Force protection is of critical importance to this 
committee. What corrective actions will you take to address the Air 
Force's force protection deficiencies as outlined in this report?
    General Jumper. The report delivered to Congress by Deputy 
Secretary of Defense Wolfowitz put a spotlight on our ability to 
respond to incidents involving weapons of mass destruction (WMD). Since 
then, we have made great strides to improve our preparedness and 
support Secretary Rumsfeld's efforts to ensure the military can provide 
our nation with enhanced, flexible and integrated response capability. 
General Mike Ryan established the Air Force First Responder and WMD 
Program. The goal of the program is to provide all Air Force commanders 
the resources to enhance their existing installation Disaster 
Preparedness Programs and Emergency Response Capability (ERC) by being 
prepared to detect, assess, contain, and recover from terrorist WMD 
attacks/incident. The Air Force First Responder and WMD Program is the 
tool we need to leverage existing emergency response command and 
control concepts and equipment while establishing a 24-hours/7 days 
response capability. As a part of this program, the Air Force developed 
a Baseline Equipment Data Assessment Listing (BEDAL) to protect Air 
Force first responders. This equipment listing provides an initial 
capability, and will roll into and support the Lead Federal Agency 
designated to oversee the larger-scale incident recovery and 
investigation. Additionally, a ``first responder training strategy'' 
was created that takes advantage of all military schools and staff 
colleges, Federal Emergency Management Agency (FEMA) training, as well 
as, state and local courses. Finally, the Air Force will continue to 
pursue joint training opportunities with other services and Federal 
agencies in the form of exercises and training workshops. I will 
continue to focus the Air Force's attention to stay in a state of 
preparedness to respond quickly and effectively.

                          b-1 fleet reduction
    31. Senator Warner. You are well aware that the fiscal year 2002 
budget request includes a reduction in force structure and 
consolidation of operating locations for the B-1 bomber fleet. One of 
your predecessors at the Air Combat Command, General Loh, said that 
this decision was made in a ``strategy vacuum''. How do you respond to 
this criticism of the B-1 decision?  
    General Jumper. I have the utmost respect for General Loh, he is a 
good friend and a great mentor. The B-1 decision was made from a 
strategic viewpoint constrained by the realities of the fiscal budget. 
Our crews increasingly face more advanced air defense systems and given 
the B-1s current defensive limitations, theater CINCs are reluctant to 
use this asset in response to regional crisis. The B-1 currently has 
over $2.0 billion in unfunded requirements across the FYDP for all 93 
aircraft. These unfunded requirements are essential to ensure B-1 
survivability and capability against current and future adversaries. 
The required upgrades will give the B-1 a long-range future that brings 
speed, penetration, precision, and targeting flexibility to our 
strategic force. The savings achieved by consolidating our B-1s and 
reducing the number combat coded aircraft result in a fully modernized 
and sustainable B-1 fleet. Consolidation allows us to provide: improved 
survivability to place more targets at risk; increased weapons 
flexibility by fully integrating precision stand-off missiles and 
bombs; global connectivity to better engage time-critical targets; and 
cost saving maintenance improvements. This strategy allows us to 
maximize the strategic and operational effectiveness of America's long-
range strike fleet for the 21st century.

                                the f-22
    32. Senator Warner. In the National Defense Authorization Act for 
Fiscal Year 1998, cost caps were established for both the development 
and the production of the F-22 fighter. Until this year, the Air Force 
supported the continuation of the development cost cap. Now the Air 
Force has recommended that the development cost cap be removed, since 
the Air Force is clearly unable to complete F-22 development with the 
cap. Why has the Air Force encountered problems with this cost cap in 
the past year? If the cap is removed, how will the Air Force fix the 
problems with this program?
    General Jumper. Senator, the cap has been an effective cost control 
tool for the F-22 program. The F-22 engineering and manufacturing 
development (EMD) program has resulted in a weapon system that is 
currently meeting or exceeding all key design goals, and the production 
configuration is essentially complete. The EMD contract is over 95 
percent complete with all hardware design finalized; all Key 
Performance Parameters (KPP) and technical Acquisition Program Baseline 
(APB) criteria are being met. The current projections for production 
are that the current congressional cap will be breached to purchase 339 
aircraft, but the government/contractor team is engaged in cost control 
efforts that rely on the implementation of effective cost reduction 
initiatives. These initiatives have become known as the F-22 Production 
Cost Reduction Plans (PCRPs), a critical tool enabling the Air Force to 
deliver F-22 aircraft within the production cost cap. More importantly, 
PCRPs will continue to drive down aircraft costs over the life of the 
production program.
    The F-22 program has a well-structured plan that continuously 
pursues cost savings initiatives. An exceptional management framework 
is established to provide real time monitoring and oversight of cost 
savings initiatives. Finally, performance to date is within the 
performance guidelines established for target price performance during 
the transitioning from development into production. The F-22 team 
continues to make progress in cutting the cost to produce F-22s. The 
key management focus for the F-22 team is to constantly pursue cost 
savings initiatives adequate to ultimately deliver the program with in 
the appropriated production budgets. The production cap forms the basis 
for the team management approach in establishing the affordability 
objectives and cost savings targets for PCRP cost reductions. The F-22 
team built an efficient management structure to jointly oversee the 
development and implementation of PCRP projects. The management effort 
includes an on-line interactive database that allows real time 
reporting of PCRP status spanning idea generation, approval, 
implementation and tracking.


    33. Senator Warner. It has been reported that both the Air Force 
cost estimators and the Defense Department cost estimators have 
determined that the F-22 production program cannot be executed within 
the congressionally established cost caps. The Defense Department 
estimate is almost 25 percent, (or $9 billion), over the current $37.6 
billion cap. Do you believe the Air Force will have to limit the 
numbers of F-22 aircraft for affordability reasons?
    General Jumper. At this point it doesn't look like the Air Force 
will have to limit the buy of F-22s. The Air Force remains committed to 
producing 339 aircraft. We have a critical need for the F-22 and will 
continue to work closely with the contractors to produce the desired 
quantity with the funds we can commit to the program.


    34. Senator Warner. Within this decade the Air Force intends to go 
into production of the F-22 fighter and the Joint Strike Fighter. In 
addition, there is a documented requirement for additional strategic 
airlift, and the Air Force has requested funds for analysis of a 
follow-on tanker. With more money being required to support the current 
aging fleet of Air Force aircraft each year, how will the Air Force be 
able to afford the new aircraft it needs?
    General Jumper. The Air Force has been very successful at 
maintaining critical combat capability by ensuring our key capabilities 
are sustained at levels that provide our warfighters the instant 
response they need to negate any adversary. We balance that by planning 
and programming requirements for future systems, in the context of 
future threats and concepts of operations.
    Sustaining our current fleet of aircraft has always been a top 
priority. Efforts such as the recent establishment of the Aging 
Aircraft System Program Office, to develop technologies that slow down 
the aging process, will be money well invested. Using common systems 
across our platforms and innovative modernization planning and 
execution will reduce upgrade costs for our older platforms. Through 
all the efforts combined, we have been successful in reducing cost 
growth while maintaining combat effectiveness.
    Our modernization efforts will be aimed at upgrading our legacy 
platforms and acquiring systems that directly relate to attain specific 
effects. Revolutionary technology will ensure we are more than capable 
to handle any aggressor.
    We can balance our future modernization needs and at the same time 
maintain the current assets we have by careful planning, phasing of new 
systems, and the meticulous projection of future sustainment needs. We 
cannot effectively plan for the future, until we make sure we have 
today covered.

                             strategic lift
    35. Senator Warner. It appears that one of the Department of 
Defense's transformational ``thrusts'' is the ability to deploy 
anywhere, delivering decisive force rapidly. Strategic lift enables 
that vision. The Mobility Requirements Study for 2005, delivered to 
Congress this past year, concluded that while sealift appears to be 
sufficient, there is a significant shortfall in meeting the strategic 
airlift requirement. What are some of the actions that are necessary 
for the Air Force to address this shortfall?
    General Jumper. Senator Warner, the Mobility Requirements Study 
2005 (MRS-05) identifies the strategic airlift requirement to be 54.5 
million ton miles per day (MTM/Day). This figure was a 10 percent 
increase from the 49.7 MTM/Day requirement identified by the 1995 
Mobility Requirement Study Bottom-Up-Review (BURU). The combination of 
procuring more C-17s and increasing the reliability of our C-5 fleet is 
our answer to meeting this increased requirement. With that in mind, 
the challenge to this plan is the proper mix of C-17s and modernized C-
5s. Purchasing more C-17s and modernizing part or all of the C-5 fleet 
is costly, so we want to proceed with due diligence. Assuming the 
ongoing QDR supports the MRS-05 requirement of 54.5 MTM/Day, we will 
utilize data from the AMC Outsize and Oversize Analysis of Alternatives 
to determine the proper mix of C-17s and modernized C-5s to meet the 
shortfall.

                          joint strike fighter
    36. Senator Warner. The Air Force intends to procure almost 1,700 
of the Joint Strike Fighter (JSF) aircraft. With that many aircraft, it 
is important that the unit cost be held to a reasonable number. The 
Navy and Marine Corps have established ranges for the unit cost of 
their JSF variants, yet it is our understanding that the Air Force has 
yet to establish a number for the high end of its price range. When 
will the Air Force decide on the upper limit of the unit price range 
for the Air Force variant of the Joint Strike Fighter?
    General Jumper. The Joint Requirements Oversight Council approved 
the Conventional Take-Off and Landing (CTOL) variant Unit Recurring 
Flyaway Cost (URF) objective at $28 million (fiscal year 1994$) and 
left the threshold as ``to be determined (TBD)'' pending the Milestone 
II decision in fall 2001. The CTOL threshold amount will not be 
established until Milestone II (for entry into EMD), receipt and 
evaluation of contractor proposals, an independent cost estimate by the 
Department of Defense, and review and approval by the Defense 
Acquisition Executive. The EMD baseline will also be updated and the 
procurement baseline established at Milestone II.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                            interoperability
    37. Senator Thurmond. As you are aware a lesson learned from the 
Balkan Campaign was that our allies failed to keep pace with the 
technology that the United States deployed in its aircraft and weapons 
systems. Although the consequences were minimal, it could have been 
disastrous had we faced a more sophisticated enemy. The Air Force is 
now undertaking significant modernization efforts and I fear we may 
again be ignoring the problem of interoperability. In your judgment, is 
the Department focusing on the issue of interoperability as it 
modernizes?
    General Jumper. The Air Force has long recognized the importance of 
interoperability with our sister services and allies. General Ryan 
recently stood up the Tactical Datalink (TDL) System Program Office and 
identified TDLs (with Link 16 as the objective) as an AF major system 
acquisition program. We are building a TDL roadmap that defines future 
modernization programs and ensures interoperability between all 
American and allied platforms. We also participate in the AF 
Operational Interoperability Requirements Group. This group is the 
primary forum for operator inputs into the tactical C\2\ 
interoperability management structure and the means for verification 
and validation of TDL information exchange and operational 
requirements. Additionally, we are implementing a process that will 
improve systems interoperability during their development and testing 
phases in accordance with Defense Department Policy contained in the 
Joint Tactical Data Link Management Plan.

                              encroachment
    38. Senator Thurmond. A challenge you will be facing during your 
tenure as Chief of Staff will be the issue of encroachment, both on the 
ground by development and in the air by increased air traffic. Contrary 
to what some Department of Defense officials may believe, these are 
issues that are found to some degree throughout the United States and 
cannot be resolved through base closure. How do we deal with this ever-
increasing challenge to our facilities?
    General Jumper. Our installations and training areas are national 
assets, essential to our combat capability. The AF manages 
approximately 9 million acres of bases and ranges. When many of these 
installations and training areas were established, they were in rural, 
sparsely populated areas. Now our installations and training areas are 
experiencing double-digit increases in population growth. Proactively 
working with the community to predict and resolve competing demands is 
the first step toward ensuring that the rapid pace of urban growth does 
not endanger our existing capital investment in base infrastructure and 
our ability to test and train.
    Not only is physical encroachment on our bases an issue, but 
frequency encroachment also threatens our ability to train effectively. 
These issues demand that we maintain open communication and close 
cooperation with all affected parties. The partnerships we have with 
our sister services, civilian leaders, government agencies, and the 
community provide an important forum to mutually resolve this 
challenge.

                             aging aircraft
    39. Senator Thurmond. One of the most critical issues facing the 
Air Force is how to maintain its aging fleet of aircraft. This problem 
is having a direct impact on readiness, flying hour cost, and the time 
our airmen spend on the flight line maintaining these aircraft. Based 
on the current efforts to modernize our aircraft fleet, how long will 
this issue of aging aircraft be with us and what interim steps can we 
take to resolve this problem?
    General Jumper. The issue of aging aircraft will be with us into 
the next decade, and despite modernization plans we will continue to 
depend on aging aircraft to meet future force requirements. The average 
age of Air Force aircraft is now 22 years, and it will continue to 
increase to nearly 30 years by fiscal year 2020.
    To ensure we maintain a viable force during this time of airframe 
average age increases, the Air Force has programmed several major 
upgrades to its aircraft fleet. The F-16C is programmed to receive 
Falcon STAR, the A-10 is programmed to receive Hog UP, and the F-15 is 
continuing to receive structural upgrades during programmed depot 
maintenance visits. The C-5 is programmed for avionics upgrades and 
engine replacement, and the C-130 will receive avionics improvements.
    The long-term solution is the recapitalization of the aircraft 
fleet. This rests firmly on the purchase of the F-22 to replace the 
aging F-15, the Joint Strike Fighter to replace the A-10 and F-16, a 
next-generation tanker, KC-X, to replace the KC-135, and a common wide-
body aircraft to replace AWACS, Rivet Joint, and other C\2\ISR 
platforms.

                                 space
    40. Senator Thurmond. General Jumper, the current leadership in the 
Department of Defense is advocating a greater role in space for our 
military services. Although the Air Force is at the forefront of this 
challenge, and already has a significant role, what is your vision of 
the Air Force's future role in space?
    General Jumper. Our vision for the Air Force's future role in space 
is one that recognizes the unique contributions and advantages space 
provides to our national security. The organizational changes 
recommended by the Space Commission and directed by the Secretary of 
Defense will lead to streamlined acquisition, more comprehensive 
planning and programing, and better capabilities for the warfighter. I 
believe space will be a crucial ``center of gravity'' in all future 
conflicts and we must fully integrate space capabilities into current 
and future warfighting missions.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                                  b-2
    41. Senator Smith. General Jumper, it is my understanding that the 
B-2 radar may have significant limitations on its operation due to 
frequency conflicts with commercial uses after the year 2007. Is this 
the case? If so, given the long lead times necessary to plan and 
execute radar modification or development programs, what are the Air 
Force's plans to address this limitation?
    General Jumper. The B-2 is designated as a secondary user in the 
band and has not been granted a long-term operational frequency 
assignment. The spectrum community has since authorized new primary 
users to operate in the band. Currently, we are operating on temporary 
waivers, as the potential for interference is not considered 
significant. Unfortunately, by 2007, a more significant interference 
potential exists as commercial satellite and downlink users are 
expected to begin using the frequency in mass numbers. This could 
subject the Air Force to significant liabilities, in addition to an 
order to cease and desist the interference. All solutions and systems 
are being considered, under a current study, to provide the most 
affordable and technically correct solution to the problem. Multi-
Platform-Radar Technology Improvement Program (MP-RTIP) and its 
applications are some of the options being considered under the study. 
The bottomline is that every effort is being pursued to provide a 
program that meets the projected need date and is affordable by the 
U.S. Air force.


    42. Senator Smith. General Jumper, I understand that the Federal 
Communications Commission has already ruled that the current B-2 
operating frequency will not be available after 2007. Doesn't this 
ruling preclude the waiver option?
    General Jumper. In 1995, an application for a permanent operational 
waiver was disapproved. For now, B-2s are operating under a series of 
temporary test permits until the FCC issues a cease and desist order, 
at which time we must stop using the radar. Recently, the National 
Telecommunications Information Administration (NTIA) sent a letter to 
the Director of Spectrum Management requesting a DOD transition plan 
for moving out of the existing band by the stated date. Every effort is 
being pursued to provide a program that meets the projected need date 
and is affordable by the U.S. Air Force.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                           budget shortfalls
    43. Senator Santorum. In briefings and materials provided to 
Congress on the Fiscal Year 2002 Budget Amendment, the Air Force noted 
there are very clear indicators that future problems will be compounded 
if not addressed in a timely fashion.
    For example, only 69 percent of the Air Force's combat units are 
rated at either C\1\ or C\2\ readiness levels. The stated Air Force 
requirement is 92 percent. In addition, readiness levels continue to 
decline as modernization fails to keep pace with the aging fleet, which 
requires additional sustainment resources. Also of concern is the $2 
billion shortfall in both general purpose and preferred munitions for 
the Air Force. The backlog of Air Force maintenance and repair 
continues to grow reaching $5.6 billion in fiscal year 2002. However, 
the fiscal year 2002 request seeks only 86 percent of plant replacement 
value. Taken together, these figures indicate that without corrective 
action, the Air Force may be forced to incur higher than acceptable 
levels of risk to execute its mission. What specific actions would you 
recommend to the Secretary of the Air Force and/or the Secretary of 
Defense to address these issues in the absence of an increase in the 
Air Force's topline? That is, assuming that there is not a substantial 
increase in defense funds for fiscal year 2002, what are some of the 
hard decisions that you would recommend be executed so that the Air 
Force could better address its most pressing problems?
    General Jumper. Senator Santorum, you have hit at the very heart of 
the balancing problem for not just the Air Force, but for all the 
services, given our current fiscal realities. Without an increase in 
the Air Force's topline and given the depreciation of our capital 
infrastructure, the hard decisions that will have to be made will 
require significant study and effort. Defining specific actions and 
recommendations to the secretaries at this time would be premature in 
the absence of a finalized QDR. I assure you that as I dig into my new 
position, I will work the Air Force's major concerns of retaining an 
experienced workforce, maintaining a state of readiness to meet 
national objectives and recapitalizing and modernizing an aging fleet.

                             f-22 cost cap
    44. Senator Santorum. Last year, the Airland Subcommittee received 
testimony on the progress of F-22 testing, which raised concerns about 
the rate at which flight test hours and test points were being 
achieved. Although the program achieved the ``exit criteria'' for entry 
into low rate initial production, the Secretary of Defense has delayed 
that decision pending the completion of a strategic review of all 
programs by the new administration. In the meantime, Congress has 
provided authority for the Department to use available funds for an 
expanded long lead production of aircraft for the program through the 
end of fiscal year 2001.
    The fiscal year 2002 budget request is for producing 13 F-22 
aircraft, instead of the 16 F-22 that were projected for fiscal year 
2002 in last year's budget request. Media reports indicate that the Air 
Force intends to delay production of some aircraft in the near-term in 
order to allocate funds to incorporate cost reduction measures for 
later lots of aircraft. Could you please comment on the efficacy of the 
cost cap for the engineering and manufacturing development phase of the 
program, along with the cost projections for the production phase of 
the program? Also, please comment on possible cost reduction measures, 
and the evaluation criteria that the Air Force is using to screen cost 
reduction candidates.
    General Jumper. The cap has been an effective cost control tool for 
the F-22 program. The F-22 EMD program has resulted in a weapon system 
that is currently meeting or exceeding all key design goals, and the 
production configuration is essentially complete. The EMD contract is 
over 95 percent complete with all hardware design finalized; all Key 
Performance Parameters (KPP) and technical Acquisition Program Baseline 
(APB) criteria are being met. The current projections for production 
are that the current congressional cap will be breached to purchase 339 
aircraft, but the government/contractor team is engaged in cost control 
efforts that rely on the implementation of effective cost reduction 
initiatives. These initiatives have become known as the F-22 Production 
Cost Reduction Plans (PCRPs), a critical tool enabling the Air Force to 
deliver F-22 aircraft within the production cost cap. More importantly, 
PCRPs will continue to drive down aircraft costs over the life of the 
production program.
    The F-22 program has a well-structured plan that continuously 
pursues cost savings initiatives. An exceptional management framework 
is established to provide real time monitoring and oversight of cost 
savings initiatives. Finally, performance to date is within the 
guidelines established for target price performance during the 
transition from development into production. The F-22 team continues to 
make progress in cutting the cost to produce F-22s. The key management 
focus for the F-22 team is to constantly pursue cost savings 
initiatives adequate to ultimately deliver the program within the 
appropriated production budgets. The production cap forms the basis for 
the team management approach in establishing the affordability 
objectives and cost savings targets for PCRP cost reductions. The F-22 
team built an efficient management structure to jointly oversee the 
development and implementation of PCRP projects. The management effort 
includes an on-line interactive database that allows real-time 
reporting of PCRP status spanning idea generation, approval, 
implementation and tracking.
    Three cost saving measures currently being implemented are listed 
for the record. The Radar Transmit/Receive (T/R) module design was 
updated, parts were reduced, and the cycle time reduced for the 
acceptance test program. New high speed milling machines have been 
purchased at Marietta to machine parts more quickly, cutting time to 
locally machine parts by 40 percent. Pratt and Whitney/Chemtronics 
Integrated Product Team addressed the exhaust nozzle transition duct 
structural bulkhead, the thermal protection liners and eliminated the 
conformal structural spars saving $120K per engine. Criteria used to 
evaluate PCRPs include upfront investment required, total return on 
investment, cycle-time savings, and manpower/man-hours savings.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                            f-22 production
    45. Senator Collins. General Jumper, I want to discuss 
modernization of our tactical air forces from several perspectives.
    First, I know the Air Force is enthusiastic about the F-22 and know 
you understand the need to modernize our tactical air forces, 
especially since you are currently the Commander of the Air Combat 
Command. I am somewhat concerned however, that the anticipated 
production rates of the F-22 may not provide adequate assets to fully 
meet all the training and operating needs of the Air Expeditionary 
Forces. It is critical that we procure the right number of assets to 
meet the requirements and to ensure that our Air Force can adequately 
counter those threats with sophisticated fighter aircraft, and that we 
provide the assets, which will have the best chance of returning our 
airmen home safely. Does building 339 F-22s give us enough flexibility 
to fully modernize our Air Expeditionary Forces to sufficient levels to 
meet the threats of the 21st century? If not, what is the optimum 
number of F-22s to meet these demands?
    General Jumper. In the event that 339 aircraft can be purchased 
with available funds, we will equip 9 operational squadrons with 24 F-
22s each Those nine squadrons would be assigned to support the 10 
Aerospace Expeditionary Forces (AEFs). This force structure will allow 
the Air Force to meet current predicted threats, however, it is not 
optimum. Ten operational, one for each AEF, would be a desirable force 
structure, but prior to the outcome of the QDR it is premature to quote 
an optimum number of F-22s.

                          joint strike fighter
    46. Senator Collins. The time has come to focus more attention on 
the Joint Strike Fighter and its role in the Air Force. In my opinion, 
the key to the JSF is ``jointness''--i.e., the Air Force, Navy, and 
Marine Corps all operating essentially the same aircraft--and the 
taxpayers reaping the benefit of having common systems among the 
variants. But the program is international, too. From your previous 
assignments in Europe, how committed are the Europeans to this effort? 
Will they be able to afford the JSF given the current state of the 
European economy? Also, can you talk to how important it is for our 
NATO allies to be able to be interoperable with the U.S. in time of 
conflict?
    General Jumper. Our European allies are very interested in the JSF 
Program and their level of commitment is growing as we near the 
Milestone II decision and the beginning of the next phase which is the 
engineering and manufacturing development (EMD) phase. The UK is 
already an EMD partner, having signed a Memorandum of Understanding 
(MOU) effective January 2001. They are contributing $2B to this joint 
and international cooperative effort and have been active in the source 
selection process to determine the winning contractor for the next 
phase of the program. A combined JSF Program Office/OSD/Services 
negotiating team has successfully concluded negotiations with Italy, 
Netherlands, Denmark and Norway. These countries are entering their 
respective national staffing processes, which will lead to MOU 
signatures before or shortly after the Milestone II decision in Fall 
2001. The total international requirement for the JSF exceeds 780 
aircraft, a strong signal of the international level of commitment and 
state of their economies.
    Regarding interoperability, it is extremely important that our NATO 
allies be as interoperable with us as possible. Past contingency 
operations have highlighted the interoperability problems we have with 
our allies. Several initiatives are ongoing to reduce these problems. 
In any future conflict we can expect to conduct joint operations with 
our coalition partners. In order to be an effective fighting force we 
must expand interoperability beyond communications and data flow to 
include tactical capabilities. Flying a common platform, such as the 
JSF, will be an important step to overcoming interoperability problems 
with our allies.

                             engine thrust
    47. Senator Collins. Under the Air Force's concept of Air 
Expeditionary Forces, or AEFs, the Air Guard has become increasingly 
utilized--and important. I frequently hear the term ``seamless'' used. 
Under this concept, is important to ensure that Guard units on active 
deployment also have the safest, most up-to-date equipment that their 
active colleagues enjoy. I say this because for several years now, 
several colleagues have worked to upgrade the Air Guard F-16 engines to 
a Block 42 configuration. I am told that increased engine thrust is one 
of the most important and immediate requirements for those deployed 
units. Would you agree that in a ``seamless'' Air Force this issue 
needs to be addressed and--if you do--how do you plan on accomplishing 
such a goal?
    General Jumper. The F-16C/G Block 42 is currently equipped with the 
25,000 lb thrust-class F100-PW-220 engine. The Block 42 fleet consists 
of 161 total aircraft, of which 50 are combat-coded. All 50 combat-
coded aircraft are assigned to the Air National Guard: 132 FW Des 
Moines, IA; 180 FW Toledo, OH; 138 FW Tulsa, OK. The remaining 111 
Block 42s are assigned to training and test units. The Block 42, like 
the Block 40, was specifically designed for the Low Altitude Navigation 
and Targeting Infrared for Night (LANTN) mission. While the Block 42 
possesses the same rugged airframe and avionics as the Block 40, its 
performance is somewhat less than the F110-GE-100-powered Block 40 
(28,000 lb thrust-class).
    We continue to work toward the goal of keeping a seamless Air Force 
by ensuring the ANG and AFRES aircraft are modernized in a timely and 
consistent fashion with the active duty Air Force. I will agree the re-
engine issue is important to the three ANG units flying the F-16 Block 
42, however the re-engine issue is lower on the list of Fleet F-16 
modernization projects. There are numerous programs that could benefit 
from the additional money being funded through congressional plus-ups, 
which better serve the Air Force and ANG. We could enhance combat 
capability and correct deficiencies in the entire F-16 Fleet through 
procurement of additional systems. Some examples of these systems are: 
Advanced Targeting Pod, radar upgrades for both the Block 40/42 and 50/
52 [APG-68(v)9], new (Common Central Interface Unit (CCIU) for the 
Block 25/30/32, Color Multifunctional Displays (CMFD) for the Block 25/
30/32, and Pyrophoric Flares to increase survivability of all F-16s. In 
essence, while the Block 42 engine upgrade is a worthwhile project, it 
is just one modernization project among many being considered for the 
F-16. It is important to note that as part of our Total Force, the 
three Block 42 F-16 units have successfully deployed to both Northern 
and Southern Watch while seamlessly integrating into combat operations 
with active operations. I will continue to make certain that the ANG 
and AFR remains integrated in our Total Force.

                            c-17 procurement
    48. Senator Collins. I believe most defense observers regard the C-
17 as a success. Yet, in fiscal year 2003 we will reach the end of the 
120 aircraft buy we originally thought prudent. In the 21st century 
with American forces no longer able to enjoy a ``forward presence'' 
around the world, the strategic airlift capability the C-17 provides is 
critical. Would you support extending the multi-year procurement for 
the C-17 to some number beyond 120? If so, what number of aircraft do 
you now regard as prudent for our forces?
    General Jumper. The Mobility Requirements Study 2005 (MRS-05) 
identifies the strategic airlift requirement to be 54.5 million ton 
miles per day (MTM/Day). This figure was a 10 percent increase from the 
49.7 MTM/Day requirement identified by the 1995 Mobility Requirement 
Study Bottom-Up-Review (BURU). The combination of procuring more C-17s 
and increasing the reliability of our C-5 fleet is our answer to 
meeting this increased requirement. With that in mind, the challenge to 
this plan is the proper mix of C-17s and modernized C-5s. Purchasing 
more C-17s and modernizing part or all of the C-5 fleet is costly, so 
we want to proceed with due diligence. Assuming the ongoing QDR 
supports the MRS-05 requirement of 54.5 MTM/Day, we will utilize data 
from the AMC Outsize and Oversize Analysis of Alternatives to determine 
the proper mix of C-17s and modernized C-5s to meet the shortfall.
                                 ______
                                 
    [The nomination reference of Gen. John P. Jumper follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 17, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under Title 10, United States Code, 
Section 601 and to be appointed as Chief of Staff, United States Air 
Force under the provisions of Title 10, United States Code, section 
8033:

                             To be General

    Gen. John P. Jumper, 0000.
                                 ______
                                 
    [The resume of Gen. John P. Jumper, USAF, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                       Department of the Air Force,
                      Headquarters United States Air Force,
                                     Washington, DC, July 20, 2001.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: The President, under the provisions of section 
601, Title 10 of the United States Code, has submitted to the Senate 
the nomination of the following general officer for appointment to the 
grade of general with assignment as indicated:

------------------------------------------------------------------------
         Name, grade and SSAN             Age     Assignment (from/to)
------------------------------------------------------------------------
John P. Jumper, General, 0000.........      56  From Commander, Air
                                                 Combat Command.
                                                To Chief of Staff,
                                                 United States Air
                                                 Force.
------------------------------------------------------------------------

    General Jumper is replacing Gen. Michael E. Ryan, United States Air 
Force, upon his departure. Confirmation action during July 2001 will 
help insure a smooth transition for General Jumper. This action will 
not result in the Air Force exceeding the number of generals authorized 
by law.
    For the information of the committee, I am enclosing a military 
history on General Jumper.
             Sincerely,
                                   Donald L. Peterson,
                                           Lieutenant General, USAF, 
                                               Deputy Chief of Staff, 
                                               Personnel.
    Attachment Military History.
                                 ______
                                 
             Resume of John P. Jumper, General, RegAF, 0000
Date and place of birth: 4 Feb 45, Paris TX.

Years of active service: Over 35 years as of 12 Jun 01.

Schools attended and degrees: Virginia Mil Inst, BS, 1966; Golden Gate 
Univ CA, MS, 1979; Air Command and Staff College, 1978; National War 
College, 1982.

Joint specialty officer: Yes. 

Aeronautical rating: Command Pilot. 

------------------------------------------------------------------------
       Major permanent duty assignments             From          To
------------------------------------------------------------------------
USAFR, Not on Active Duty.....................       Jun 66       Jul 66
Stu Ofcr, Undergrad Plt Tng, 3550 Stu Sq, ATC,       Jul 66       Nov 67
 Moody AFB GA.................................
Plt, Troop Carrier, C-7A, 459 TASq, PACAF, Phu       Nov 67       Mar 68
 Cat AB RVN...................................
Plt, C-7A, 459 TASq, PACAF, Phu Cat AB RVN....       Mar 68       Nov 68
Stu, USAF Replmnt Tng Crs, F-4, 431 TFSq, TAC,       Dec 68       Aug 69
 George AFB CA................................
Acft Comdr, 555 TFSq, PACAF, Udorn RTAFB TH...       Aug 69       Dec 69
Forward Air Cntrlr, 555 TFSq, PACAF, Jdorn           Dec 69       Feb 71
 RTAFB TH.....................................
Acft Comdr, F-4C, 91 TFSq, USAFE, RAF                Feb 71       May 72
 Bentwaters UK................................
Flt Examiner, 81 TFWg, USAFE, RAF Bentwaters         May 72       Jan 73
 UK...........................................
Ch, Stan/Eval Div, 81 TFWg, USAFE, RAF               Jan 73       Jun 74
 Bentwaters UK................................
Stu, Ftr Wpcs Instr Crs, F-4, 414 FWSq, TAC,         Jun 74       Jan 75
 Nellis AFB NV................................
Ftr Wpus Instr, F-4, 414 FWSq, TAC, Nellis AFB       Jan 75       Jan 77
 W............................................
Flt Comdr, 414 FWSq, TAC, Nellis AFB NV.......       Jan 77       Aug 77
Stu, Air Comd & Staff College, AU, Maxwell AFB       Aug 77       Jun 78
 AL...........................................
Air Ops Ofcr, Tac Ftr Gen, AF/XOOTT, Hq USAF,        Jun 78       Aug 81
 Pentagon DC..................................
Stu, National War College, NDU, Ft McNair,           Aug 81       Jul 82
 Pentagon DC..................................
Specl Asst to the Comdr, 430 TFSq, TAC, Nellis       Jul 82       Nov 82
 AFB NV.......................................
Chief of Safety, 474 TFWg, TAC, Nellis AFB NV.       Nov 82       Feb 83
Comdr, F-16, 430 TFSq, TAC, Nellis AFB NV.....       Mar 83       Jul 83
Exec to the ComUr, TAC, Hq TAC, Langley AFB VA       Jul 83       Aug 86
Vice Comdr, 33 TFWg, TAC, Eglin AFB FL........       Aug 86       Feb 87
Comdr, 33 TFWg, TAC, Eglin AFB FL.............       Feb 87       Feb 88
Comdr, 57 FWWg, TAC, Nellis AFB NV............       Feb 88       May 90
Dep Dir, Pol Mil Aff, J-5, Joint Staff,              Jun 90       May 92
 Pentagon DC..................................
Sr Mil Asst to SecDef, OSD, Pentagon DC.......       May 92       Aug 94
Comdr, 9 AF, ACC; Comdr, USCENTCOM Air Forces,       Aug 94       Jun 96
 Shaw AFB SC..................................
Dep Chef or Staff, Plans & Ops, HQ USAF/XO,          Jun 96       Dec 96
 Pentagon DC..................................
Dep Chief of Staff, Air & Space Ops, HQ USAF/        Jan 97      Nov 97
 XO, Pentagon DC..............................
Commander, Air Forces Central Europe, NATO;          Nov 97      Feb 00
 Commander, United States Air Forces in
 Europe; and Air Force Component Commander,
 USEUCOM, Ramstein AB, Germany................
Commander, Air Combat Command, Langley AFB, VA       Feb 00      Present
------------------------------------------------------------------------

ACC/CC, 205 Dodd Blvd, Suite 100, Langley AFB, VA 23665-2788.

------------------------------------------------------------------------
                       Promotions                         Effective date
------------------------------------------------------------------------
Second 1ieutenant......................................        16 Jun 66
First Lieutenant.......................................        12 Dec 67
Captain................................................        12 Jun 69
Major..................................................         1 Jan 78
Lieutenant Colonel.....................................         1 Oct 80
Colonel................................................         1 Oct 85
Brigadier General......................................         1 Aug 89
Major General..........................................         1 Feb 92
Lieutenant General.....................................         1 Sep 94
General................................................        17 Nov 97
------------------------------------------------------------------------

Decorations:

    Defense Distinguished Service Medal with one Bronze Oak Leaf 
Cluster.
    Air Force Distinguished Service Medal.
    Legion of Merit with one Bronze Oak Leaf Cluster.
    Distinguished Flying Cross with two Bronze Oak Leaf Clusters.
    Meritorious Service Medal with two Bronze Oak Leaf Clusters.
    Air Medal with three Silver Oak Leaf Clusters and two Bronze Oak 
Leaf Clusters.

Summary of joint assignments:

------------------------------------------------------------------------
          Assignments                     Dates                Grade
------------------------------------------------------------------------
Commander, Air Forces Central    Nov 97-Present.........  Gen
 Europe, NATO; Commander,
 USAFE; and AF Component
 Commander, USEUCOM, Ramstein
 AB, Germany.
Sr Mil Asst to SecDef, OSD,      Apr 92-Aug 94..........  Maj Gen
 Pentagon DC.
Dep Dir, Political Military      Jun 90-Apr 92 Joint      Maj Gen
 Affairs, J-5,.                   Staff, Pentagon DC.     Brig Gen
Air Operations Officer,          Jun 78-Aug 81..........  Lt Col
 Tactical Fighter General,
 Deputy Chief of Staff, Plans
 and Operations, HQ USAF,
 Pentagon DC \1\.
------------------------------------------------------------------------
\1\ Joint Equivalent.

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial and 
other information of the nominee. The form executed by Gen. 
John P. Jumper, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Phillip Jumper.

    2. Position to which nominated:
    Chief of Staff, United States Air Force.

    3. Date of nomination:
    July 17, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 4, 1945; Paris, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ellen McGhee Jumper (formerly Ellen Elizabeth McGhee).

    7. Names and ages of children:
    Catherine J. Schafer--age 28.
    Janet E. Jumper--age 25.
    Mellisa D. Jumper--age 15.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Ninth Air Force Association--Member.
    Counsel on Foreign Relations--Member.
    Caribous Association--Member.
    Daedalions--Member.
    Air Force Association--Member.

    11. Honors and awards: List all memberships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Wings Club of New York City--Honorary Member.
    Air Force Sergeants Association--Honorary Member.
    Logistics Officer Association--Honorary Member.
    Respect For Law Alliance--Military Honoree.
    Aviation Week--Laurette.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Gen. John P. Jumper.
    This 27th day of July, 2001.

    [The nomination of Gen. John P. Jumper was reported to the 
Senate by Senator Warner on August 2, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2001.]

 
  NOMINATION OF GEN. RICHARD B. MYERS, USAF, TO CHAIRMAN OF THE JOINT 
                            CHIEFS OF STAFF

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:39 p.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Cleland, Landrieu, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Carnahan, Dayton, Warner, McCain, Smith, Inhofe, 
Roberts, Allard, Hutchinson, Sessions, Collins, and Bunning.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard D. DeBobes, counsel; Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Maren Leed, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; Michael J. 
McCord, professional staff member; Arun A. Seraphin, 
professional staff member; and Terence P. Szuplat, professional 
staff member.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Judith A. Ansley, deputy staff 
director for the minority; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; Edward H. Edens 
IV, professional staff member; Brian R. Green, professional 
staff member; Gary M. Hall, professional staff member; Carolyn 
M. Hanna, professional staff member; Mary Alice A. Hayward, 
professional staff member; Ambrose R. Hock, professional staff 
member; George W. Lauffer, professional staff member; Patricia 
L. Lewis, professional staff member; Thomas L. MacKenzie, 
professional staff member; Ann M. Mittermeyer, minority 
counsel; Suzanne K.L. Ross, research assistant; Cord A. 
Sterling, professional staff member; Scott W. Stucky, minority 
counsel; and Richard F. Walsh, minority counsel.
    Staff assistants present: Gabriella Eisen, Daniel K. 
Goldsmith, Jennifer L. Naccari, and Nicholas W. West.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi, assistant to 
Senator Akaka; Eric Pierce, assistant to Senator Ben Nelson; 
Neal Orringer, assistant to Senator Carnahan; Brady King, 
assistant to Senator Dayton; Christopher J. Paul and Dan 
Twining, assistants to Senator McCain; Margaret Hemenway, 
assistant to Senator Smith; John A. Bonsell, assistant to 
Senator Inhofe; George M. Bernier III, assistant to Senator 
Santorum; Robert Alan McCurry, assistant to Senator Roberts; 
Douglas Flanders, assistant to Senator Allard; James P. 
Dohoney, Jr., assistant to Senator Hutchinson; Kristine Fauser, 
assistant to Senator Collins; and Derek Maurer, assistant to 
Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Today, in New York City and across the 
Potomac in Virginia, our fellow citizens continue to sift 
through the rubble 2 days after the most deadly and cowardly 
attack ever against the United States. The terrorists behind 
this sought to destroy more than structures. They sought to 
destroy the American spirit. But those who unleashed this 
horror now understand they have failed.
    Through our rage at these attacks on our people and on our 
free institutions shines a focused determination to recover our 
loved ones and friends who are still lost, and to assist their 
loved ones in coping with the devastating void into which they 
have been plunged. Our fury at those who attack innocents is 
matched by our determination to protect our citizens from more 
terror, and by our resolve to track down, to root out, and 
relentlessly pursue the terrorists and those who would shelter 
or harbor them.
    Two nights ago, Senator Warner and I joined Secretary 
Rumsfeld, General Shelton, and General Myers at the Pentagon, 
and witnessed first-hand that determination. Brave men and 
women were attending to the victims and fighting the fires all 
just a few feet away from loved ones and friends who were still 
missing or presumed killed. Many of them have been working 
nonstop ever since the attack. America salutes them as the 
genuine heroes and heroines that they are, and our prayers are 
with the victims and their families and friends who grieve for 
them.
    For every person who has perpetrated a barbaric act, 
thousands of Americans have engaged in acts of extraordinary 
courage. Those acts are still unfolding, and will unfold in the 
days, weeks, and months ahead.
    Debate is an inherent part of our democracy, and while our 
democratic institutions are stronger than any terrorist attack, 
in one regard we operate differently in times of national 
emergency. We set aside our differences, and we ask decent 
people everywhere to join forces with us to seek out and defeat 
the common enemy of the civilized world.
    As Chairman of the Joint Chiefs of Staff, General Hugh 
Shelton assured the Nation 2 nights ago that America's Armed 
Forces are ready. General Shelton has served in the demanding 
position of Chairman of the Joint Chiefs of Staff for the past 
4 years with great distinction. The Nation and every man and 
woman who wears our country's uniform owes him a tremendous 
debt of gratitude. Now General Richard Myers is ready to assume 
the duties that General Shelton so magnificently shouldered.
    The President has nominated General Myers to be the next 
Chairman of the Joint Chiefs of Staff. General Shelton's term 
expires on September 30. This committee must act on General 
Myers' nomination, and we will do so.
    The tragic events of the last 2 days vividly remind us 
again of the importance of this position. The Chairman of the 
Joint Chiefs of Staff is the highest-ranking military officer 
in the United States Armed Forces, and is the principal 
military advisor to the President, the National Security 
Council, and the Secretary of Defense.
    General Myers is uniquely well-qualified to serve as the 
next Chairman of the Joint Chiefs. He is a decorated Vietnam 
veteran who knows the dangers faced by our men and women in 
uniform. He has led U.S. forces in Japan and in the Pacific 
with a steady hand. He has served as Assistant to the Chairman 
and as Commander in Chief, U.S. Space Command, since February 
of the year 2000. He has served as Vice Chairman of the Joint 
Chiefs, the Nation's second highest-ranking military officer, 
at times acting as Chairman in General Shelton's absence.
    General Myers is, I believe, the first Vice Chairman to be 
nominated as Chairman. At times when we are reminded almost 
daily of the dangers to our military personnel, and the 
sacrifices of their families, we particularly want to welcome 
General Myers' wife, Mary Jo. Mrs. Myers, we welcome you. We 
thank you for your service to the Nation. You, too, will be 
called upon for sacrifice in addition to the extraordinary 
sacrifice which you and your family has already undertaken.
    This is no ordinary time. This will be no ordinary 
nomination hearing. As Vice Chairman, General Myers has been 
personally involved in the rescue efforts at the Pentagon, and 
in guiding the United States Armed Forces during these 
difficult days. He is in a unique position to update the 
committee and the country on the situation, and we have asked 
him to do so.
    General Myers, we welcome your testimony on the status of 
your efforts at the Pentagon, the extent of the damage and the 
loss of life, the role that the U.S. military forces are 
playing in support of rescue and relief efforts in New York 
City, and what steps this Nation might take to strengthen our 
ongoing efforts to combat the scourge of terrorism.
    I just want to make two very brief announcements before I 
call on Senator Warner and then on our two colleagues who will 
be introducing General Myers. First, at the conclusion of our 
open session, Senator Warner and I have determined we will go 
into a Members-only classified session in the Intelligence 
Committee hearing room, SH-219. General Myers will be there 
with other members from the uniformed staff, but also Secretary 
Wolfowitz will be joining us at that time.
    Second, we are making arrangements for bus transportation, 
and I want to thank Senator Warner for his leadership in this, 
for members of the committee who would like to go to the 
Pentagon at approximately 6:30 this evening. There are a number 
of members who have made their own arrangements to go over in 
the last couple of days, and Senator Warner and I thought it 
would be helpful to arrange for transportation for those who 
might wish to go to the Pentagon. We will be back to you as 
soon as possible with details about the precise time and place. 
It will be after our executive session, and at a place to be 
determined.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I do hope as many 
members as possible will take this opportunity to visit the 
Pentagon this evening. Just moments ago I left the site. I have 
been on it twice now. General Myers, I want to thank you for 
taking the time to go there today to recognize the hardworking 
people from primarily Virginia, Maryland, and the District of 
Columbia--firefighters, rescue workers, Red Cross aids, and 
engineers. I say to my colleagues, it is a remarkable scene. I 
think no matter how many times you view this on television, it 
doesn't prepare you for the horrific site and precise manner in 
which that plane was directed at the building.
    Mr. Chairman, I just received a call from the White House. 
I am to meet with the President at 3:10, so I am going to put 
my statement into the record.
    I thank Mrs. Myers, as the chairman said, for your career 
opportunities not only for yourself, but for your distinguished 
husband. It is a team effort, so often, in the military. It is 
a team effort.
    So if you will excuse me, I am going to depart. I hope to 
return in time for the executive session.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in welcoming General Myers and his family.
    As I know you appreciate, it was imperative that we go forward with 
this hearing and demonstrate our resolve to both our allies and our 
enemies. The Joint Chiefs of Staff and, particularly, their Chairman, 
are a vital link in our national security organization. Proceeding with 
the orderly transfer of this key office is a unequivocal indicator that 
our national security institutions are intact and fully operational.
    General Myers, as Senator Roberts noted in his introduction, is 
eminently well qualified for this position. He is a command pilot with 
over 600 combat flying hours and operational experience as the 5th Air 
Force Commander. He has commanded the United States Space Command, 
NORAD, and United States Air Forces, Pacific. He understands today's 
defense challenges and those of the future. In this time of 
transformation--made all the more challenging and urgent as a result of 
the escalation of the asymmetric threat this Nation faces--General 
Myers' experience as the Vice Chairman will be of enormous relevance.
    General, you have my support, and, if confirmed, you will be thrust 
into one of the most challenging positions of responsibility I have 
ever observed. I applaud your willingness to serve, and I look forward 
to working with you.
    Senator Levin.

    Chairman Levin. Thank you very much, Senator Warner.
    General Myers has responded to the committee's prehearing 
policy questions and our standard questionnaire. Without 
objection, these responses will be made a part of the record.
    The committee has already received the paperwork on General 
Myers and we will be reviewing it. There are several standard 
questions that we ask nominees who come before the committee 
and I will ask General Myers these questions first.
    Do you agree, if confirmed for this position, to appear 
before this committee and other appropriate committees of 
Congress and to give your personal views, even if those views 
differ from the administration in power?
    General Myers. Mr. Chairman, yes, I do.
    Chairman Levin. Have you adhered to applicable laws and 
regulations governing conflict of interest?
    General Myers. Yes, I have.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Myers. No, I have not.
    Chairman Levin. Will you ensure that the Joint Staff 
complies with deadlines established for requested 
communications, including prepared testimony and questions for 
the record in hearings?
    General Myers. Yes, sir, I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Myers. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    General Myers. Absolutely.
    Chairman Levin. At this point, we have two colleagues who 
both claim General Myers as their own, and we understand fully 
why. It is nice to be fought over in this way, General. We will 
first call upon, with the agreement of both of our colleagues, 
Senator Carnahan for the first introduction, and then Senator 
Roberts for the second introduction.

               STATEMENT OF SENATOR JEAN CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman. America is 
enduring one of the gravest moments in its history, but as Holy 
Scripture reminds us, and it always gives us hope, we are 
reminded from the Book of Esther that there are those who are 
called to the forefront in just such times. Sitting next to me 
is the military leader for our time. He has been tried and 
proven time and time again.
    Our country is indeed fortunate in this hour of need to 
have Gen. Richard B. Myers as the nominee for the Chairman of 
the Joint Chiefs of Staff. He will inherit a post of paramount 
responsibility. He is charged with taking on new battles and 
with deploying new weaponry against the current and insidious 
threats to our Nation. I believe General Myers is the right man 
to lead our military forces in this endeavor, and I 
enthusiastically endorse his nomination for the chairmanship of 
the Joint Chiefs of Staff.
    It is a great honor to join Senator Roberts in introducing 
General Myers to this committee. Kansas and Missouri have long 
disputed claims to territory, as well as collegiate sports 
titles. Well, today we add to the historic rivalry between our 
States. We have a disputed claim over just which State should 
claim the nominee for the highest military post in the land, 
but I believe we can agree on one thing: General Myers would 
make an excellent Chairman of the Joint Chiefs of Staff. His 
extensive leadership in space-based defense, U.S.-Asia policy 
and defense acquisition make him an ideal candidate to oversee 
the military's transformation in the 21st century.
    He is a decorated command pilot with more than 4,000 hours 
in the cockpit, including 600 as a fighter pilot in Vietnam. 
General Myers has been awarded the Distinguished Flying Cross 
twice and 19 air medals. He has served with distinction as 
Commander in Chief of United States Space Command and Commander 
of the Pacific Air Forces, and for the last 2 years he has 
served on the Joint Chiefs of Staff as the Vice Chairman, 
leading the Joint Requirements Oversight Council (JROC) and 
Defense Acquisition Board (DAB). But above all, General Myers 
has emerged as a powerful voice for America's service men and 
women.
    As the highest-ranking officer in the United States 
military, the Chairman of the Joint Chiefs of Staff must 
promote the quality of life for our soldiers, sailors, airmen, 
and marines. I have no doubt that General Myers will be a 
strong advocate for men and women in uniform, both Active and 
Reserve components. As a distinguished warrior himself, he can 
relate to the rigors and sacrifices endured by our servicemen 
and women today.
    Mr. Chairman, I urge this committee to recognize the 
extraordinary credentials of this nominee with a favorable 
reporting to the United States Senate.
    Chairman Levin. Senator Carnahan, we thank you for that 
strong endorsement.
    Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Mr. Chairman and Senator Warner, my dear 
friends and colleagues, it is both an honor and a privilege for 
me to introduce to the Senate Committee on Armed Services 
General Richard B. Myers as the nominee to be the next Chairman 
of the Joint Chiefs of Staff. But first, like our distinguished 
chairman, let me offer my prayers, my thoughts to the families 
of the Americans that lost their lives in the attack on the 
United States, an attack not only on them and our country, but 
also on American democracy and freedom. This will not stand.
    I wish to associate myself with the outstanding remarks 
from my colleague and friend from Missouri. Senator Carnahan, I 
would like to revise and extend just a portion, however. 
General Myers was born at St. Luke's Hospital. That is a fine 
hospital just across the Kansas border. However, just as soon 
as he was ambulatory he was rescued and taken back to Kansas--
--[Laughter.]
    --to a community called Miriam, where he has lived ever 
since. General Myers is not only a Kansan, but as President 
John Wefald of Kansas State University will point out, just as 
importantly, he is a graduate of Kansas State University, the 
home of the ever-optimistic and fighting Wildcats----
[Laughter.]
    Now rated number 10 in the football polls.
    His wife, Mary Jo, is a K State graduate and a resident of 
Manhattan, Kansas, which we call the Little Apple. She is an 
English major, and I have been informed that Mary Jo has spent 
the last couple of days staffing the phones at the Army Family 
Service Center. Well done, Mary Jo, and thank you so very much.
    Please understand, as important as being a fighting 
Wildcat, that it is an honor for me to present a man I feel is 
exceptionally qualified to prepare and lead our military as we 
deal with emerging threats, so tragically portrayed on 11 
September. We must understand the nature of the warrior class 
that makes up these State-sponsored or rogue groups that are 
capable of perpetrating the attack the United States suffered 
on Tuesday.
    Make no mistake about it, although the possibility of the 
classic force-on-force military conflict must be part of our 
military's capability, we must also be prepared to realign our 
military strength to address the asymmetry in warfare 
demonstrated so graphically Tuesday. I am confident that 
General Myers understands these issues, and is certainly ready 
for them.
    I believe that the General has shown he has a grasp of the 
requirement for military transformation. I am confident that 
the events of the past few days will reflect the direction and 
the amount of transformation our military must undergo under 
his leadership.
    Part of the equation for transformation is the supporting 
role the United States military must play in handling the 
consequences of an act of terrorism. Again, the events of this 
week point out the value of the role played by our military, 
our Active-Duty Forces, our guard and our Reserve, but the 
military must have this as a mission, and be prepared and 
trained to respond.
    Now, I am not going to read the impressive military 
background of the General, but only add that he is clearly 
well-qualified to lead our military in this new age that burst 
in vivid reality on our doorstep on the 11th, and I urge my 
colleagues to support General Myers for this most important 
post.
    It again is a privilege and honor to recommend him to you. 
Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Roberts, and to use the 
football analogy a little further, in the competition here to 
introduce you it is a tie between Missouri and Kansas. They 
both won, and they are both winners indeed.
    General Myers, do you have an opening statement for us?

    STATEMENT OF GEN. RICHARD B. MYERS, USAF, NOMINEE TO BE 
                CHAIRMAN, JOINT CHIEFS OF STAFF

    General Myers. Mr. Chairman, I do have a short opening 
statement.
    Mr. Chairman, distinguished members of the committee, thank 
you for the opportunity to appear before you today. I 
especially want to thank Senator Carnahan of Missouri, my 
birthplace, for your very kind words, and I sincerely 
appreciate your remarks. Senator Roberts, both because you are 
a fellow man of the plains and a K-Stater, but more 
importantly, today because of your recent chairmanship of the 
Subcommittee on Emerging Threats and Capabilities. You have 
been part of a great team at the leading edge of our efforts to 
address the challenge of asymmetric warfare, and for that we 
are all in your debt.
    Two days ago, our Nation suffered a sudden, horrific attack 
by terrorists. They attacked two symbols of our national power, 
one economic and one military, but not the heart of that power. 
The heart of America's strength is found not in its symbols, 
but in its people, 270 million determined citizens, and 
similarly, the heart of American military power is not a symbol 
called the Pentagon. The heart of that power resides in every 
soldier, sailor, airman, marine, Coast Guardsman sworn to 
defend our Constitution and the American way of life.
    These despicable acts have awakened a national resolve in 
the American people and its Armed Forces that rivals any seen 
since Pearl Harbor. Today, due in large measure to the 
outstanding support of the Members sitting before me, America's 
military is trained, ready, and extremely capable of responding 
to the President's clarion call.
    If confirmed, I pledge to keep our Armed Forces at that 
razor's edge first and foremost by sustaining our quality force 
and taking care of the heart of our military, our people. They 
are our decisive edge. We have made great strides in recent 
years under the outstanding leadership of Gen. Hugh Shelton, 
but we have to continue the momentum to improve their quality 
of life. Hugh Shelton was key in getting us this far, and of 
course with your assistance we can take it to the next level.
    I will also work tirelessly with our service chiefs and 
commander in chief's (CINCs) to ensure that our troops continue 
to receive the training, equipment, and support they need to 
carry out the wide range of missions that we have assigned to 
them.
    Finally, my third priority will be preparing our military 
for the security challenges of the future, modernizing and 
transforming the force with new, joint capabilities, even as we 
face the threats of today.
    Members of the committee, if confirmed, I look forward to 
your wise counsel and a bipartisan spirit as we look forward to 
addressing today's issues and tomorrow's challenges. I join you 
in honoring those of our citizens, military and civilian, who 
were injured or died in these recent attacks. Our hearts go out 
to all who have lost loved ones in this terrible tragedy, and 
we will never forget them.
    So thank you, Mr. Chairman. I look forward to your 
questions in a minute, but first with your permission I would 
like to talk on two issues: the status of the Pentagon, and the 
civil support measures we have taken by the Armed Forces in 
providing support in New York and Washington, DC.
    First of all, I think as some of you know that have been to 
the Pentagon, the fire is out. There are some areas that are 
water-damaged, and we are starting to clean those up and move 
back into those areas. It will leave about a whole wedge of the 
Pentagon--maybe not quite a wedge, but almost a wedge of the 
Pentagon--that will need to be rebuilt, so they are in the 
process right now of recovering the remains, of determining the 
stability of the structure where the airplane hit, and already 
planning to rebuild that structure.
    I was with Senator Cleland when this happened, and went 
back to the Pentagon, and they were evacuating, of course, the 
Pentagon at the time, and I went into the National Military 
Command Center, because that is essentially my battle station 
when things are happening. It proved to be as resilient as our 
people did and have been throughout this crisis, and that is 
where we stayed. The air got a little acrid at times. The air 
filtration system shut down for moments, but we got it back up 
and were able to stay there throughout the whole effort.
    In terms of military support in New York and Washington, 
DC, for the Pentagon, that support, some of you have seen it, 
but it is from the soldiers and sailors, airmen, marines, and 
Coast Guardsmen from this area and the local authorities, and 
there were many first responders. I cannot catalogue all the 
names on all the sides of ambulances and fire trucks that 
responded, but they were from all over the District, from 
Virginia, and from Maryland, and they all pitched in and did 
exactly what they had to do.
    In New York, the Department of Defense active duty and 
Reserve component, the Guard and Reserve have supported every 
request from FEMA, and to my knowledge there may be some 
outstanding requests, but we are fulfilling those requests. We 
fulfilled all the ones that I know of. We are in the process of 
maybe a few that we have not quite responded to yet because of 
just the time it takes to move the assets. They mainly fall in 
the logistics area, in the medical area, and in transportation, 
and we are doing that.
    There has also been, as you are probably aware, quite a bit 
of activity by the North American Aerospace Defense Command in 
the skies over this great country, and of course the Coast 
Guard has taken special measures regarding our ports and 
waterways and our coastline.
    With that, Mr. Chairman, I am prepared to take your 
questions.
    Chairman Levin. Thank you very much, General. We will now 
proceed on the basis of the early bird rule with the first 
round of 6 minutes each. I understand that approximately 20,000 
people work at the Pentagon, perhaps a few more, that there 
were 132 killed at the Pentagon, 64 on the plane that hit the 
Pentagon. Can you tell us about what percent of the Pentagon's 
work space is out of commission? Do you have any estimate of 
that?
    General Myers. I do not know the exact square footage, sir.
    Chairman Levin. What approximate percentage of space would 
it be, 20 percent?
    General Myers. I would say it is roughly 20 percent or 
less, and as I said, there are some areas that are water-
damaged. The desks and the chairs are fine, and they will be 
moving back into those, but it is going to be, like I said, 
about a wedge, so roughly 20 percent of the square footage.
    Chairman Levin. General, in your personal view, are there 
capabilities or equipment that the Armed Forces need today to 
respond to the terrorist attacks that they do not currently 
have, or are they able to respond today, should that decision 
be made, to those attacks?
    General Myers. Sir, I think we are able to respond today. 
Of course, there are always ways to enhance our capabilities, 
and I think you will see in a supplemental that is either here 
or heading this way what some of those capabilities will be. I 
am happy to go into that if you want. Some of them will be in 
the intelligence area, of course. Some will be in command and 
control, and there will be some in the force protection arena. 
There will be others, of course, but let me just reiterate, we 
have what we need today to do what we need to do.
    Chairman Levin. Was the Defense Department contacted by the 
FAA or the FBI or any other agency after the first two hijacked 
aircraft crashed into the World Trade Center prior to the time 
that the Pentagon was hit?
    General Myers. Sir, I do not know the answer to that 
question. I can get that for you for the record.
    [The information referred to follows:]

    The following times answer Chairman Levin's question regarding when 
the Defense Department was notified by the FAA during the September 11, 
2001, Hijacking Attacks (all times in EDT):

    0838: Federal Aviation Administration (FAA) notified the North 
American Defense Command (NORAD) of a hijacking.
    0843: FAA notified NORAD of second hijacking.
    0846: American Airlines Flight 11 crashed in the North Tower of the 
World Trade Center (WTC).
    [Deleted.]
    0903: United Airlines Flight 175 crashed into the South Tower of 
the WTC.
    [Deleted.]
    [Deleted.]
    1010: United Airlines Flight 93 crashed in Somerset, PA.

    Chairman Levin. Was the Defense Department asked to take 
action against any specific aircraft?
    General Myers. Sir, we were.
    Chairman Levin. Did you take action against--for instance, 
there have been statements that the aircraft that crashed in 
Pennsylvania was shot down. Those stories continue to exist.
    General Myers. Mr. Chairman, the Armed Forces did not shoot 
down any aircraft. When it became clear what the threat was, we 
did scramble fighter aircraft, AWACs, radar aircraft, and 
tanker aircraft to begin to establish orbits in case other 
aircraft showed up in the FAA system that were hijacked, but we 
never actually had to use force.
    Chairman Levin. Was that order you just described given 
before or after the Pentagon was struck? Do you know?
    General Myers. That order, to the best of my knowledge, was 
after the Pentagon was struck.
    Chairman Levin. General Myers, you have agreed to give us 
your personal views even when they might disagree with the 
administration in power, but the Secretary was quoted in a July 
article as saying that his choice for Chairman would have to 
possess candor and forthrightness, of course, he said, but he 
wanted this willingness to disagree to show up only in very 
direct, private counsel. Now, have you been told that your 
willingness to disagree should show up only in private counsel, 
or are you committed to give us your personal views when asked, 
even if those views might differ from that of the Secretary?
    General Myers. Sir, I have never been told to limit my 
views to private discussions, and as I said earlier, Mr. 
Chairman, absolutely.
    Chairman Levin. Thank you.
    General, you indicated in response to one of the 
committee's prehearing policy questions as to what your 
priorities would be if confirmed, that one of your priorities 
would be to better define the military's role in homeland 
security. I am wondering if you could tell us what your 
concerns are in this area, and what role you believe the 
military should play.
    General Myers. Mr. Chairman, that issue was debated in our 
Quadrennial Defense Review (QDR) and it is still being debated. 
I think this current tragedy puts that issue at center-stage.
    As the Commander in Chief of North American Aerospace 
Defense Command (NORAD), as well as United States Commander in 
Chief Space Command (USCINCSPACE), we have plans to deploy our 
fighters to defend the U.S. from external threats. I never 
thought we would see what we saw the last few days, where we 
had fighters over our cities defending against a threat that 
originated inside the United States of America, so I think this 
whole issue of homeland defense, or homeland security, needs a 
lot more thought.
    There is a role, obviously, for the Department of Defense. 
What that role is, I am not confident I know that answer today, 
but I just know that the debate needs to take place now.
    We have had other issues that we have worked in seminar 
games, if you will, or exercises, where we have looked at other 
incidences of weapons of mass destruction, and what we found in 
some of those is that local authorities are often quickly 
overcome by the situation, and there is going to be a reliance, 
I believe, on some of the capabilities we have inside the 
Department, so we need to sort through those issues.
    To tell you exactly what our role ought to be, I do not 
know for sure. I just think we need to think through that so 
the next time we have a terrible tragedy, we are ready to act 
in a unified way, in a focused way. That is not to say we have 
not done that in this crisis. I think we have come together 
very, very well, but it certainly raises those questions, Mr. 
Chairman.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. First of all, in 
spite of what my distinguished friends and Senators from 
Missouri and Kansas said, it has always been recognized that a 
military man's life begins at his first training, which was 
Vance Air Force Base, so I look forward to voting to confirm my 
fellow Oklahoman. [Laughter.]
    There has been one question I am going to ask just for the 
record, because I do not think there is an answer today, but it 
is one I would like you to give some thought to, and that is 
the idea of depots.
    I think we recognize that we need a core capability. With 
the depots we have gone through a BRAC round where we 
eliminated two of the five and transferred the workloads, which 
is the appropriate thing to do. However, we are using 
antiquated World War II plants, buildings, maintenance 
operations, and for the record, at a later date, if you would 
submit something, your ideas as to where they should fit in, 
and how we can modernize them, I would appreciate it.
    General Myers. Will do, Senator.
    [The information follows:]

    Our organic depot maintenance organizations provide robust and 
invaluable industrial repair capabilities. They have repeatedly proven 
their ability to rapidly increase output and to change priorities to 
meet warfighter requirements when national emergencies emerge, such as 
we find ourselves in now.
    Thanks to the Base Realignment and Closure process, we have been 
able to consolidate much of our core depot maintenance capability. This 
has helped reduce our overhead costs. As you stated, however, many of 
our depot facilities are quite old. Just as our base housing and other 
base infrastructure suffered degradation from lack of capital 
investment over the past decade due to increasingly high operations 
tempo requirements, our depot maintenance facilities have felt the 
pinch as well.
    I do believe we are turning the corner on depot plant and equipment 
recapitalization. The Department of Defense applied $205.9 million of 
its Working Capital Fund and $37.6 million of its Military Construction 
money to its depot programs in fiscal year 1998. It added $231.6 
million and $40.6 million respectively in 1999 and $255.8 million and 
$61.9 million in 2000. This trend is encouraging but, bear in mind, it 
will take time for this capital investment to manifest itself in 
modernized building and equipment.
    I can also tell you, that we are modernizing our depot maintenance 
business processes as well. The Services have implemented some truly 
innovative programs, such as public-private partnerships and use of 
emerging automation technologies, to enhance the efficiency and 
effectiveness of our depot maintenance programs.

    Senator Inhofe. Having chaired the Readiness and Management 
Support Subcommittee for a number of years, I have been 
concerned with a lot of readiness problems. One is 
encroachment, everything from the environmental constraints to 
training ranges, the urban sprawl, and, of course, at Nellis 
you experienced that, and it is still a problem out there, 
aerospace restrictions, loss of frequency spectrum, these are 
all very, very serious problems.
    Recently, we have been concerned with the Vieques range, 
which of course is Navy and Marine. However, if we, for the 
first time in our Nation's history, would allow some law-
breaking trespassers to close down a live range, it would have 
a domino effect throughout not just America, but throughout the 
world, and so I would like to have you address the encroachment 
problems as you see them, and what possible solutions are out 
there.
    General Myers. Senator Inhofe, an excellent question, 
because it is at the heart of our readiness. Our training 
facilities and our training ranges are absolutely essential to 
staying ready to discharge the missions that this country wants 
us to perform, and encroachment is a problem. It has been a 
problem for a long, long time.
    What I would like to say is that the Department has in the 
last year really focused on this issue and is trying to work it 
with, again, a unity of effort, led by the Office of the 
Secretary of Defense (OSD) staff, and with the support of the 
individual Services, and the Joint Staff. I think that is going 
to help mitigate the effects we are having right now. I think 
this will be something we will have to deal with for an awfully 
long time to come.
    As we develop new weapons systems, as they require more 
space, or different support facilities, as we try to pursue 
that, we are going to have to try to find that right balance 
between our readiness and the environment and the people that 
we have an impact on. Technology can play a part in that, and I 
think we are taking steps to ensure that it does.
    I would just like to leave you with the thought that the 
Department of Defense (DOD) is very focused on this particular 
issue right now, and I think we will be successful.
    Senator Inhofe. I know that is right, and one of the 
dilemmas--let us just take one of the Southeastern ground bases 
like Camp LeJeune or Fort Bragg, where their training areas are 
interrupted by the habitat of the red-cockaded woodpecker and 
the better job they do, the more that expected habitat is 
expanded, so they are being punished for the job they are 
doing. This is something that I think you need to look at, 
because it is happening throughout the southeast part of the 
United States
    General Myers. We will, Senator.
    Senator Inhofe. The general readiness question is the 
deficiencies that were discussed by the CINCs when they were in 
this very room. I do not remember the exact cost, but the spare 
parts, lack of ammunition, shortage of flying hours, all of 
these, these are just general readiness issues.
    It is one of these situations where it is all bleeding, it 
is all hemorrhaging, and I know you are probably putting 
yourself in a situation where you are going to have to try to 
make some priorities, but do you have any thoughts about what 
you can do on these general problems of readiness out there?
    General Myers. Yes, sir, Senator Inhofe. Having just marked 
up the President's 2002 budget, a majority of the increase in 
that budget was for just those things, for flying hours, for 
driving time for the Army, for steaming time for the Navy, for 
the spare parts to keep the whole military machine healthy, and 
to try to do so in a way that it will not require us coming 
back to Congress for a supplemental, so I think the efforts 
over the last several years, some of which are again just 
starting to pay dividends because of lead time, and certainly 
with the 2001 supplemental and the 2002 budget, I think we have 
taken steps to ameliorate some of those shortfalls.
    Senator Inhofe. I was going to mention one other thing. I 
know my time is running out, but one last question having to do 
with modernization. I was pleased when General Jumper made a 
statement sometime ago, about a year ago, I guess now it was. 
It gave us an opportunity to have some credibility when we 
talked about the fact that we have slipped a lot in our 
modernization programs.
    Most Americans may disagree with the causes of wars, or 
with some of the problems we have, but they all have been 
laboring under, I think, this misconception that we have the 
very best of everything out there. We do not have the very best 
any more. When we look at our best air-to-air vehicle, the F-15 
air-to-ground vehicle, the F-16 in many ways, the SU series 
that is on the open market, manufactured by the Russians is 
better than that we have, so I am sure that is one of your top 
priorities.
    Do you have any comments to make about your ideas on 
modernization, maybe specifically on the F-22?
    General Myers. Senator Inhofe, modernization is a huge 
issue when it comes to tactical air. The dilemma we are in, and 
I think this is true for the Air Force for sure, for the Navy 
to a little lesser degree, for the Marine Corps for sure, and 
it is just degrees here, is that these procurements go in 
cycles over time, and for most of this decade we have not 
bought a lot of tactical air. So our tactical air assets have 
just continued to age, and I would agree with your comments, we 
are not always flying the best fighters in the world any more.
    In terms of the F-22, I think it is absolutely essential. 
The Secretary of Defense has authorized entry into low-rate 
production, and that decision should be made here very, very 
quickly. I can go into more detail if you like.
    Senator Inhofe. That is fine, General. My time has expired, 
but I also want you to look at other Services, for example, our 
artillery capability, our rapid-fire ranges. The Palladin we 
are using now is not as good as almost any country that could 
be a potential adversary.
    General Myers. Senator, I absolutely agree, and though I 
sit here in front of you in the blue uniform of the United 
States Air Force, my whole focus is going to be on what the 
contribution is of systems to the joint warfighting equation, 
so that naturally takes me into every Service's modernization 
programs, and for that matter, other concepts they may have and 
doctrinal changes. That is all important.
    Senator Inhofe. Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. We have 
heard many good statements on General Myers. I would like to 
express my welcome and support for the nomination of Gen. 
Richard B. Myers to serve as the Chairman of the Joint Chiefs 
of Staff. I also want to welcome Mrs. Myers to this hearing as 
well.
    I had the pleasure of first meeting General Myers when he 
served as Commander of the Pacific Air Forces from 1997 to 1998 
at Hickam AFB in Hawaii. While he was there, he made a big 
difference in the Pacific.
    I also wanted to thank General Myers for taking the time to 
visit with me last week to discuss a number of issues. Some of 
the questions I would have asked here, we discussed during your 
visit, and so I will ask you other questions. I just want to 
say, Mr. Chairman, I have the full confidence in General Myers' 
ability to serve in this critical position, and I look forward 
to working with you, General Myers.
    General Myers. Thank you, Senator.
    Senator Akaka. Of course, I am very interested in what 
would be happening to Hawaii, and what changes may come. My 
question is about Asian theater threats. How will U.S. forces 
be altered to focus on potential Asian theater threats, as 
identified by Secretary Rumsfeld, and how might this affect 
force posturing in Hawaii?
    General Myers. Senator Akaka, that is the subject of two 
things. One is the QDR, which is ongoing, and the Defense 
Planning Guidance (DPG), which asks the Services to look at 
several posture options around the world, to include the 
Pacific region. Some of those do-outs will not come back until 
next spring, when the Services will come back with some of 
their ideas on perhaps a more efficient posture for their 
forces, and some of it will come out of the review, of course, 
as well, so it is a little bit premature because we have not 
finished those reviews.
    Again, it is going to be trying to balance our obligations 
around the globe, and the missions we are given. Clearly, the 
emphasis on Asia Pacific is the one the Secretary has set for 
us, and the one that we embrace, and we are looking at exactly 
those questions. I just think it is a little early to give you 
specifics on that, sir.
    Senator Akaka. General, and this will be my final question, 
I want to be brief. What, in your opinion, are the first 
measures that need to be taken for military transformation?
    General Myers. Well, we could talk a long time about 
transformation. Let me just talk about one aspect of it that I 
think gets to your question, and it goes back to ensuring that 
inside the Department of Defense we have unity of effort for 
transforming and, for that matter, modernizing our forces. Part 
of that includes guidance from the Office of the Secretary of 
Defense and the staff. Part of that includes work that the 
Services will do.
    Part of that includes development of joint operational 
concepts and architectures that must lead development of 
materiel, items that might enhance our joint transformation, 
and of course there is a major part that resides at Joint 
Forces Command down in Norfolk, because they have the role of 
experimentation which you would think would lead our 
transformation efforts, and it is trying to focus those efforts 
between all those pieces, the acquisition community, the 
requirements community, and the programming and budgeting 
process. We have to bring all that together to encourage and to 
help our transformation.
    The Secretary of Defense has very rightly, I think, focused 
in on our programming and budgeting system as being a product 
of the cold war, and is looking to make changes in it to make 
it more responsive to our transformation needs, so if I were to 
talk about it, I would talk about the process first, and 
products later.
    Senator Akaka. Thank you very much for your responses. 
Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman. Mr. Chairman, is it 
your intention to go one round?
    Chairman Levin. It depends on how long the round takes. 
There also may be a delay on the executive session. Senator 
Warner and I need to go down to meet with the leadership at 
4:30, and that could affect that. We may have to have an 
interim period of some kind, which would hopefully last no more 
than 15 or 20 minutes, so there is a little bit of uncertainty 
now about when that will begin, I have just been informed.
    However, I would say we hope to do it in one round, but 
perhaps if there are some questions which we just simply need 
to ask, we would have a very short second round, would be my 
hope.
    Senator Smith. Thank you.
    General Myers, congratulations on the honor of being 
selected as Chairman. It is amazing, really, to think that what 
normally is just a perfunctory service, if you will, of 
nominees coming before the committee, whether it is the 
Chairman or other positions on the Joint Chiefs, has 
traditionally involved a few questions and answers and then 
moving forward with the nomination. Now it takes on huge 
implications, and I just want you to know, speaking for myself, 
and I know I speak for others, we have great confidence in you 
and the job you are going to have to face. I just want to let 
you know we are with you, and look forward to doing the 
Nation's business.
    General Myers. Thank you, Senator.
    Senator Smith. It is hard to stay out of what happened, and 
I do have a couple of questions I want to ask in classified 
session, but I want to ask you one that received some publicity 
and to see if you can answer here. If you cannot, then fine, 
say so, and we will do it in executive, classified session. 
There were some reports that there were some international 
flights headed here during this episode.
    It is not unreasonable to think that international flights 
might be coming here, but I mean, that may have been turned 
around, and abruptly after things developed. Is there any truth 
to the accusation that there may have been some international 
flights involved with this activity? Do we have any information 
on that?
    General Myers. I do not have complete information, because 
of the time it happened. I can give you--there was one flight 
inbound to the U.S. that had turned on its transponder and 
indicated a code that it was being hijacked before it got to 
Alaska. We had fighter aircraft on it. It eventually landed in 
a remote base in Canada, and they were safe, and I do not know 
the results of that, whether it was a mistaken switch-setting, 
or what it was. I cannot tell you that. We can find that answer 
for you, Senator.
    [The information follows:]

    The Department of Defense has no indication that any international 
flights were involved in the September 11, 2001, hijacking indicents.

    Senator Smith. The plane was not hijacked, or we do not 
know?
    General Myers. I had better say, I do not know. We had 
other things to do at that time. Once it was safely on the 
ground, and the passengers were safe, we went on to the next 
order of business. That was in the middle of all of this.
    We had reports of other aircraft, one other aircraft that I 
am aware of, and the reports were somewhat mixed, and I do not 
think were true, because it was turned around by the operating 
company and went back to Europe on its own, and was fine, so 
the only one I know of that even comes close is the one I 
mentioned, and I do not know if that was a hijack attempt or 
some other kind of duress that the airplane was under.
    Senator Smith. Do you know the country of origin?
    General Myers. Not for sure.
    Senator Smith. Mr. Chairman, I have some----
    General Myers. I can tell you in closed session what I do 
know.
    Senator Smith. I have some other questions, Mr. Chairman, 
but I am going to submit those for the record, because they do 
not relate to the current environment, and I will yield back 
the remainder of my time.
    Chairman Levin. Thank you, Senator Smith, very much.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman.
    General Myers, I understand that you have had extensive 
experience in planning for combatting cyber attacks. I was 
wondering if you would describe your work in this emerging 
field, and elaborate on your plans to build off of these 
experiences.
    General Myers. I first ran into this responsibility when I 
was at U.S. Space Command. About a month after I arrived, after 
I was confirmed by the committee and I arrived for duty, the 
President and the Secretary of Defense decided the 
responsibility for defense of the DOD networks would fall to 
U.S. Space Command, and then a year later that U.S. Space 
Command would have the responsibility for attack. By the way, I 
did not get a vote in this. This was a responsibility that was 
issued. We had to learn very quickly how to go about these 
responsibilities.
    Since then, we have come a very, very long way, and General 
Eberhart, who now serves at U.S. Space Command, has really 
taken this to the next level. Here in Washington, DC, we now 
have a joint task force for computer network operations. It 
does its job through coordination with all the services, of 
course, and other agencies. There is great cooperation with our 
civilian telecom folks, and there is also great cooperation 
with the FBI and other civil authorities who have a role in all 
of this.
    The thing I would like to leave you with is, it is not 
unlike the earlier question about homeland defense or homeland 
security. Certainly, when you are under attack in a cyber way, 
fairly quickly you have to determine is this an attack on the 
United States by another Nation, or another group that wants to 
do you harm, is it a prankster? Is it a civil matter, or is 
this a national defense or national security matter? We have 
mechanisms for deciding that, but I think that is another area 
along with the whole homeland defense issue that needs a lot 
more thought.
    I would just end by saying that the mechanism set up for 
cyber security for the Department of Defense has been very 
effective, and the recent viruses that have spread throughout 
the country have had essentially no impact on our operation.
    Senator Carnahan. The Emerging Threats and Capabilities 
Subcommittee has been involved in examining the National 
Guard's role in managing the after-effects of a nuclear or 
chemical or biological attack.
    For example, we are continuing to help develop the weapons 
of mass destruction civil support teams, and these teams, some 
of them are being trained in army facilities around the 
country, including Fort Leonard Wood in Missouri, and they are 
being trained to work with some of the emergency first 
responders to decontaminate areas and to help with medical aid.
    I was wondering if you would describe what you feel the 
importance of these are, and detail your commitment to honing 
our abilities to respond to such attacks.
    General Myers. Senator Carnahan, I think they are extremely 
important. This is an area where I think the National Guard can 
play a key role. I think they are ideally suited for this type 
of mission, because it is one they have been trained for and 
God forbid we will ever have to use it, but if we do, they will 
be ready. They will be trained.
    I think those missions are perhaps more natural for the 
National Guard than some of the current missions, so that is 
one of the things we have to look at as we look at the overall 
issue of homeland defense, the role of the Reserve component 
primarily in the National Guard, and how they would play in 
this. I think it is extremely important. I think the National 
Guard's role is only going to increase.
    Senator Carnahan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Carnahan.
    Let me apologize to my colleagues. I had the wrong list in 
front of me in terms of the order of calling on Senators. As a 
result, there were people called out of order on both sides 
already. Now, I have the alleged correct order. Let me now read 
it, because there has been some confusion on this.
    The next Senator on the Democratic side would be the 
Senator who I should have called on first, Senator Cleland. I 
apologize to you. Then I would go to Senator Roberts, back to 
Senator Reed, back to Senator Allard.
    Senator Akaka, who I was not supposed to call on until way 
later, got called early, so I would then go back to Senator 
Nelson, then to Senator Collins, and then to Senator Lieberman, 
who is no longer here, but Senator Carnahan, apparently you got 
called early. I do not know how that can happen when you 
introduced our nominee, but nonetheless, if I have not totally 
confused you by now, that is the new order of calling on 
Senators. I apologize.
    Senator Bunning. What about the rest of us?
    Chairman Levin. Let me finish the list. After Senator 
Lieberman on this side will be Senator Bunning, then Senator 
Ben Nelson, Senator McCain, Senator Landrieu, Senator 
Hutchinson, Senator Dayton, and Senator Sessions.
    Senator Sessions. That will be about midnight. [Laughter.]
    Chairman Levin. We are going to try to do that. Multiply it 
six times, about 15, and you have it. We just did Senator 
Carnahan. Now we go to Senator Roberts.
    Senator Roberts. I thank the chairman. In August, General, 
General Shelton sent an action memo requesting permission for--
I am quoting--transfer of antiterrorism force protection, the 
acronym--everything has to be an acronym--AT/FP functions to 
the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict. He stated in that action memo that AT/
FP is not a statutory function of the JCS and is more 
appropriately the shared responsibility of OSD, the CINCs, and 
the Services.
    I was prepared to address this issue before the 11 
September 2001 tragedy, but I must tell you that I am not--not 
supportive of the JCS not being involved in antiterrorism or 
force protection.
    I do agree that OSD and the CINCs and the services must be 
involved as well, it is their responsibility, but so must the 
JCS. This is too big of an issue not to have the leadership I 
think your office can bring. Would you give your views on 
General Shelton's request, and can you shed some light on this 
decision?
    General Myers. Senator Roberts, to my knowledge that was a 
recommendation to the Secretary of Defense. I do not believe we 
have a decision on it yet. General Shelton's thought behind 
this was basically unity of effort. The Services and unified 
commanders are the ones that are responsible for force 
protection. The role that this office and the Joint Staff 
played, and the role of the Office of the Secretary of Defense, 
are staff functions to disseminate policy, work the resources, 
and so forth.
    The idea was, if you are looking for redundancy, maybe this 
is a place you could look. From a staff function, not from any 
other shirking of responsibility, who should have that 
responsibility. That was the Chairman's thought at the time. It 
was to eliminate some redundancies, is what he was thinking.
    Senator Roberts. We are going to have to talk about that 
later. I will not go into it right now, but I have another 
question, which may be somewhat redundant, in regards to a 
question that was asked previously. Last November, the GAO 
reported the Services were not integrating their chemical and 
biological defense into unit exercises, and that the training, 
if done, was not always realistic in terms of how units would 
operate in war.
    Similarly, the DOD reported last year the Army's combat 
training centers continued to see units at all levels unable to 
perform all chemical and biological defense tasks to standard. 
The DOD report, like the recent GAO report, noted that less 
than satisfactory performance of the units is directly 
attributable to the lack of chemical and biological training at 
the unit's home installations. What is your assessment of that?
    Let me say, however, that if you would ask me and Senator 
Mary Landrieu, the distinguished Chairman of the Emerging 
Threats and Capabilities Subcommittee, what we would have 
expected on 11 September if, in fact, we knew there was going 
to be an attack, we would have probably said a biological 
weaponry of some kind, perhaps chemical, perhaps a cyber 
attack.
    I do not think any of us would have come up with the top 10 
saying that terrorists would hijack four airplanes, kill the 
crew and endanger and kill the passengers, and then attack 
American icon infrastructures. Having said that, there is a 
very realistic possibility in regards to chemical and 
biological defense, and I am worried about it. What comments do 
you have?
    General Myers. Senator Roberts, I am worried about it as 
well, and I agree with your threat assessment. I think we know 
that is a real threat to our forces deployed around the world, 
and perhaps from terrorism in the United States, so we have to 
be ready.
    Now, this is interesting, because when I got to the Pacific 
in the early nineties we decided this was not a big threat. We 
started to tear down some of our infrastructure that supported 
it. I know it is true in the United States Air Force, because I 
had an Air Force hat on at that time.
    Then we were told no as we looked at the threat, this is 
the wrong direction, so we tried to get that ship turned a 
different direction. I think we are in that process, and we 
have to be just as ready for that kind of threat as we are for 
the more conventional threats. So, I agree with your comments, 
and it is one of the things that, if I am confirmed, I will 
take a hard look at.
    Senator Roberts. Are the deployed units falling short of 
standards for chemical-bio defense capability set by joint 
doctrine?
    General Myers. Sir, I will have to get back to you on that. 
That is not one of the things that have come up in the 
readiness reporting that I review monthly.
    [The information referred to follows:]

    Before units or individuals are deployed, there are a 
number of assessments and preparatory actions that take place. 
One area addressed, both in intelligence assessments and 
gaining combatant command guidance, is the requirement for 
chemical-biological (chem-bio) protection. I am confident that 
units, including our specialized nuclear, biological, and 
chemical (NBC) defense units, deploying to high-threat areas 
requiring chem-bio equipment and training, meet current 
standards in both regards. However, while the deployed and 
first-to-fight units are robust, there are readiness shortfalls 
in the later-deploying and nondeployed forces.
    In addition, it is important to note that even before 
September 11, we saw the need to look at chem-bio requirements, 
standards, and readiness above the unit level. Specifically, 
there are many levels between the unit and theater-of-
operations level, and the Department of Defense is actively 
working to improve or develop doctrine, concepts of operations, 
and equipment/training requirements for the strategic, 
operational, and tactical levels of war. Efforts are focused on 
theater-wide NBC warning and reporting development of detect-
to-warn vice detect-to-treat biological detection capabilities, 
and validated guidance to address decontamination standards for 
ports, airfields, and strategic lift assets. These efforts will 
likely drive new requirements down to the unit level. The fruit 
of this labor will be a more robust, theater-wide approach to 
countering weapons of mass destruction (WMD), new equipment and 
joint training requirements, quantifiable standards for forces 
operating in NBC conditions, meaningful readiness assessments, 
and most importantly, a more effective fighting force capable 
of operating in the most stressful environments.
    To summarize, our units deploying today are properly 
equipped and trained for chem-bio operations using current 
standards. In the future, chem-bio operations will benefit from 
a more holistic, theater-wide approach, and additional or 
refined standards and requirements will be the future benchmark 
of chem-bio readiness.

    Senator Roberts. I have no further questions, Mr. Chairman.
    Chairman Levin. Thank you, Senator Roberts.
    Senator Cleland.
    Senator Cleland. Thank you, Mr. Chairman. I want to thank 
Senator Roberts and Senator Landrieu for over the last couple 
of years making this Senator more and more painfully aware of 
the unconventional threats to our country which manifested 
themselves on Tuesday.
    General, as I look back at that morning that you and I were 
meeting, it is a good thing we are meeting here, and not us 
meeting in the Pentagon. About the time you and I were having 
our visit, discussing the need to boost our conventional 
forces, to look at the question of terrorism and attacks on the 
United States, just about that very moment the Pentagon was 
being hit. So, it is good to see you.
    General Myers. It is good to see you, Senator.
    Senator Cleland. I am glad to be here with you.
    In thinking of this moment in American history, I think no 
new Chairman of the Joint Chiefs of Staff has ever taken over 
in such a perilous time. Maybe with the exception of some 
officers who took over in December 1941, when we did not have a 
Joint Chiefs of Staff, you take over in a perilous, historic 
moment, but one filled with opportunity.
    Our wonderful chaplain, Dr. Ogilvie, says sometimes life 
can be awfully simple, or simply awful. Tuesday, it was simply 
awful, as we all know. It seems to me, though, that some of the 
things came out of that are awfully simple: (1) we need to 
boost our intelligence capability; (2) we need to make sure 
that more of our assets are put forward toward counterterrorism 
activity; and (3) that the United States of America and the 
military has to be an integral part of this, and that cyber 
terrorism is a part of this in the future.
    These are findings that have been brought before the 
Subcommittee on Emerging Threats and Capabilities and before 
this committee in the last couple of years that we needed to be 
more prepared in these areas, and so with Tuesday's events for 
me it is awfully simple, that this is where we have to beef up.
    It is amazing that we spend well over $300 billion a year 
on defense, and yet Tuesday we seemed very much defenseless, so 
I just wondered what lessons over the last 72 hours you have 
quickly learned that are awfully simple to you, that you can 
share with this committee.
    General Myers. Well, I think you have hit on some of them. 
As I mentioned earlier, one of the first things we need to do, 
and this will take some thought because it is not without 
differing views on the issue, to determine what is the 
Department of Defense's role in this type of activity inside 
the United States? Overseas, it is a little easier to envision. 
Inside this great country, it is a little more difficult. So, 
what is our role, what is our mission and so forth? That is the 
homeland defense issue, and we need to get about that business 
of coming to grips with that, and how all the agencies of this 
Government collaborate and cooperate to bring focus to the 
problem.
    I would also, on the intelligence side, say that obviously 
that is a lesson learned. Senator Cleland, there is a major 
review of our intelligence apparatus going on right now. I 
think it goes without saying that our intelligence operations 
are structured as they were during the Cold War, and they are 
looking at that. My guess is they will have substantial changes 
in the way we are perhaps organized, and for sure equipped, to 
deal with the 21st century. You will see some of that in the 
supplemental that is coming this way.
    Another issue that came to my mind that maybe others have 
not thought of is the absolute essential nature of our 
communications. They worked fine in this crisis, but you could 
envision other scenarios, other asymmetric attacks on the 
United States, where maybe our communications would not work so 
well. We spend a lot of money for secure, survivable 
communications, and we have a program to do that over time.
    It has some funding problems right now, but if it drove 
something home to me, it is the need to fund that properly, and 
to make sure--and I am not saying this incident would trigger 
something like that, but you could have incidents you could 
think where you might not have the comms you need to have with 
the country's leadership to make the kind of decisions you need 
to make, so I would add that one to your list.
    Senator Cleland. One of the other things that seems awfully 
simple to me is that Senator Roberts and I took the floor to a 
relatively empty Senate last year. Five to six different times 
talked about the role of America in the wake of the Cold War 
being over, and in many ways we were overextended, our forces 
were spread thin. I personally, like you and others in this 
body here, have been to see where we have spent $300 million in 
defending Kosovo. We are all throughout the continent of 
Europe.
    Last August, I was up on the DMZ where we have 37,000 
troops in Korea, for this hyperextension of American power all 
around the globe. It does seem ironic to me that we cannot 
defend New York and Washington.
    So some things were simply awful on Tuesday, but I think 
out of that come some things that to me are awfully simple, in 
that these are the priorities we ought to focus on.
    Thank you very much for your service, and God bless you.
    General Myers. Thank you, Senator.
    Chairman Levin. Thank you, Senator Cleland.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I would like to 
join my colleagues in congratulating you, General Myers, on a 
very successful career, part of which was in the State of 
Colorado as USCINCSPACE. I felt like we had a great working 
relationship there, and I want to ask you some questions on 
missile defense and then maybe a question or two on the Space 
Commission Report, if I have time.
    On missile defense, in your advanced questions to the 
committee you thought that it would be reasonable to employ a 
ballistic missile defense if it met four criteria relating to 
deployment and threat, cost-effectiveness, and operational 
capability. You also stated in your answers you believe that 
deploying a ballistic missile defense to defend the United 
States from a limited attack is in the national security 
interest, and so I have four questions related to that.
    Have you concluded that the ballistic missile threat 
warrants such a deployment?
    General Myers. Sir, my conclusion is that it has, and if I 
could expand just a minute, we have had for quite some time now 
the threat of the shorter-range missiles against our troops, 
and we saw that starkly in Desert Storm, when the so-called 
SCUD missile went into Dharan and killed over 20 of our U.S. 
personnel.
    Since that time, the proliferation of missile technology, 
of course, has spread to many other countries, so from the 
short-range missiles to the long-range missiles I think we can 
now say that absolutely there is, at least there is a 
capability out there, and this could be a threat to the United 
States.
    Senator Allard. Have you concluded that affordable cost-
effective ballistic missile defenses can be developed and 
deployed?
    General Myers. I think that part remains to be determined. 
I think we are well on the way to that, but I think for the 
shorter-range missiles the answer is absolutely yes. In fact, 
this is the debut month for the first unit equipped for the new 
Patriot 3 system, which is--that is the response, and it has 
taken us 10 years, but we have a response now for the shorter-
range missiles that are much more effective than the missile 
defenses we had during Desert Storm. As I said, the first unit 
will be equipped this month, and then follow-on units, of 
course. So, I think for the short range missiles the answer is 
yes.
    For the threats against the United States, I think the 
honest answer to that is, we have to wait and see. My gut tells 
me that yes, we will be able to develop this in a way that is 
affordable and effective. I think that is what General Kadish 
has testified before this committee, but we need to watch that.
    Senator Allard. Have you concluded that such systems will 
be operationally effective?
    General Myers. I have not concluded that yet. Again, on the 
short-range systems I think we can say Patriot 3 has been 
through extensive testing. I think we can say it is effective. 
We are going to have to look at the rest of them as they come 
on board.
    The so-called Theater High Altitude Area Defense (THAAD), 
the potential Navy systems, airborne laser, many of those are 
in developmental stages. I think it is too early to say that at 
this moment they are effective, but I think the vector for all 
of them is actually positive. We are just going to have to 
evaluate them as we do all systems, as they come online through 
appropriate testing.
    Senator Allard. Have you concluded such systems will 
increase U.S. security?
    General Myers. If they meet those criteria we talked about 
earlier, Senator Allard, I would say they do, and I would go 
back to Patriot 3 again. I think it does increase our security, 
and we will just have to see, as the systems come on board.
    If they develop as the requirements call for them to 
develop, then I think we will be able to say yes to that, but 
for some of those systems it is probably too early.
    Senator Allard. I would like to turn to the Space 
Commission report. The Commission recommended the United 
States, and I quote, ``develop, deploy, and maintain the means 
to deter attack and to defend vulnerable space capabilities, 
including defense in space,'' and then they go on, quote, 
``power projection in and from and through space.''
    What new investments should the Department of Defense make 
to develop, deploy, and maintain the capabilities described in 
the Space Commission report?
    General Myers. Some of those we can probably talk about in 
open session, and some of those we are probably going to have 
to talk about in a closed session, or separately. Two that 
immediately comes to mind that I think we can talk about are 
space control, which is guaranteed access to space for our use, 
and denying it when appropriate, to adversaries, and space 
surveillance, our ability to know what is going on in space.
    We have a system today that is made up of many different 
elements, some of which are quite old, and it needs to be 
refurbished. The goals have been set in the Defense Planning 
Guidance to do exactly that, so that is one that I think we can 
talk about.
    We can talk about the absolute fundamental nature of space 
control to everything else we want to do in space. It all 
starts with knowing what is going on up there, so space 
surveillance is the one that I would highlight.
    Senator Allard. I would like to go to space-based radar. 
This has been a controversial program between the House and the 
Senate, and it came out in the Conference last year and 
previous years. We have had quite a bit of discussion on it. 
What is your feeling about space-based radar as far as, can you 
relate to this committee whether the Air Force and OSD have 
decided to deploy space-based radar?
    General Myers. The whole issue about space-based radar, if 
we take it up to the next level, is what we are talking about 
here is persistence. We are talking about the difference 
between reconnaissance, which looked at things in elements of 
time, to something that surveils, that looks at something all 
the time.
    We are pretty much in the reconnaissance mode today. My 
personal view is, in intelligence we need to go to the 
surveillance mode for this kind of capability. So, when the 
technology is ready and affordable, my vote would be that we 
need to pursue this initiative.
    This is something that is also captured, I think, in our 
Defense Planning Guidance. There is emphasis there. This will 
not be--my time at USSPACECOM taught me, since I delved into 
this at length--something that we will be quickly able to put 
on orbit. There is a lot of technological work yet to do.
    Having said that, my own view is that this is achievable 
over time, and when we have an affordable system, one we can 
put up, we ought to pursue that.
    Senator Allard. Thank you. My time has expired.
    Chairman Levin. Thank you, Senator Allard.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and 
welcome, General Myers. Let me thank you and Mrs. Myers for a 
lifetime of selfless service to the Air Force and to the United 
States. Knowing you are a graduate of the Army War College, I 
know you are prepared for the duties you will soon assume.
    Let me also take up the issue of National Missile Defense 
(NMD). Given the answers to your previous questions, and with 
respect to NMD against long-range intercontinental missiles, 
would you recommend deployment of such a system this fiscal 
year that is coming up?
    General Myers. A deployment of the system in this fiscal 
year? My understanding is that we are not ready for deployment 
in fiscal year 2003.
    Senator Reed. Would you recommend acquiring additional 
missiles, some of which have not been tested for a contingency 
deployment, in the upcoming fiscal year?
    General Myers. I think whatever system we deploy, we have 
to have high confidence in its ability to do the job that we 
require it to do.
    Senator Reed. Could you estimate, given your knowledge 
today, when you would have that high confidence, the next 
fiscal year, or the following fiscal year?
    General Myers. Senator Reed, I cannot give you the details 
on that. I would rely on General Kadish and his folks to 
provide that assessment.
    Senator Reed. Thank you. In terms of the security of the 
United States with the deployment of such a system, what 
criteria would you look to?
    General Myers. The one that Senator Allard talked about 
before, in that we have to know that we have the technical 
capability that meets the operational requirement, and that it 
is affordable.
    Senator Reed. Specifically, for example, there is a 
discussion in the press that China is proposing to increase its 
long-range missile fleet, and there is some suggestion that the 
administration has not actively discouraged them, because such 
a fleet could nearly overwhelm any NMD we would deploy, and 
therefore the Chinese would take confidence that we would 
deploy the system not as a threat to them. But that increase of 
missiles, would that be a more stable world, in your view, or a 
more complicated world?
    General Myers. Let me attack your question from the other 
side. I think one of the fundamental things we have to do is be 
able to protect our troops overseas, and our U.S. citizens. We 
have talked about the threat, and I think there is a threat on 
both sides. We know we have a short-range threat. We have had 
that for sometime now. There is a longer-range threat that has 
been acknowledged. So whatever steps we can take to handle that 
threat, to defeat that threat are appropriate. Our troops and 
our allies and, I think, our U.S. citizens would want us to do 
that.
    Senator Reed. Let me just say that I think there is a 
strong sense of support, obviously, for increased research in 
all these areas, also for deployment, because it seems to be 
capable. As you mentioned, the PAC 3 is ready for deployment of 
theater missile defense systems, and with that I think we are 
all in agreement.
    Let me ask you another question. This is one that touches 
upon the whole issue of strategic posture in the United States. 
If a foreign power launched a missile against the United 
States, even if that missile were intercepted, would you 
recommend to the President we retaliate against that act of 
war?
    General Myers. That is a hypothetical situation, but I can 
put my old hat on back at North American Space Defense Command, 
because that was exactly the responsibility that fell on me, 
and the situation you have posed. If there was a missile launch 
and we intercepted it, would I advocate a response, and in that 
narrow scenario, absolutely not.
    In fact, as we sat there in Cheyenne Mountain, and taking 
people through the mountain, we played the simulation of what 
an attack on the United States might look like. The frustrating 
part was, we do a pretty good job of telling folks we are under 
attack with very high assurance, but there is nothing you could 
do about it. It would be wonderful if we had that capability, 
and would give the National Command Authorities time then to 
refine a response, and it might not be to retaliate, which 
might help stabilize the situation.
    Senator Reed. General, again I think your experience and 
your service is extraordinary. It gives me confidence because 
you are going to be confronting these very difficult issues, 
some of which at this point are mercifully hypothetical, but 
your judgment and your experience is truly valuable.
    If I have additional time, I would like to turn to a more 
procedural issue, and that is, with the damage to the Pentagon, 
when do you anticipate the QDR might be publicly released?
    General Myers. An excellent question, sir. I can tell you, 
sir, we have been meeting for the last 48 hours or so, and our 
sole focus has been on the issue at hand. The QDR word has not 
come up once, and I regret that I do not have a good answer for 
you. I think, since that is the Secretary of Defense's product; 
I know he has been totally consumed by the current situation, 
we can get an answer for the record for you. I am sure he is 
thinking about that probably about now as well, but I do not 
have an answer for you.
    [The information referred to follows:]

    The Quadrennial Defense Review Report was publicly released 
September 30, 2001.

    Senator Reed. Just a final question, which goes back to the 
events of last Tuesday. This was a national tragedy of 
historical proportions. It seems to me in a very narrow point 
of force projection that, in terms of the Pentagon, a major 
military facility, you had absolutely no advance warning that 
such an attack was being contemplated, or planned, or executed, 
is that correct?
    General Myers. There was no strategic warning that this was 
contemplated or planned, to the best of my knowledge.
    Senator Reed. I presume, based on your discussion with 
Senator Cleland, that this has been a source of almost 
immediate examination and review by the Department of Defense 
as to what could be done in the future to avoid this situation.
    General Myers. Absolutely, and not just the Department of 
Defense, but all the civil agencies as well that have intel 
apparatus, given that they may have knowledge as well.
    Senator Reed. Thank you very much.
    Chairman Levin. Thank you, Senator Reed.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. General Myers, 
let me join my colleagues in congratulating you on your 
appointment, but I also want to express my sorrow and sympathy 
to you. I realize all of you who work in the Pentagon have 
friends and coworkers and associates that are missing, and it 
must be a very difficult time for all of you, and I just want 
to extend my sympathy and condolences to you.
    General Myers. Thank you, Senator.
    Senator Collins. In the priorities that you have submitted 
to the committee in response to an advance question, you said 
we should better define the military's role in homeland 
security, and obviously, given the events of this week, we are 
very happy to see that you have included that as a priority 
under the 1986 Goldwater-Nichols law.
    Most of the world has been divided up into geographic 
areas, each assigned to a specific regional commander in chief, 
the CINCs, who in time of crisis serve as the military's top 
crisis manager or warfighter in that area. It is my 
understanding, however, that the United States territory itself 
is not thought of in those same terms. If we are going to 
increase our focus on homeland defense, does that mean that we 
should consider the possibility of treating our own country to 
some extent as a military operational command, the way we have 
divided the rest of the world?
    General Myers. Senator Collins, I think the best way to 
answer is that in a sense we have already done that. We have 
the command United States Joint Forces Command (USJFC), which 
is located in Norfolk. There is some exception with naval 
forces and marine forces on the West Coast, but for the most 
part the forces in the United States, the components of the 
Army, Navy, Air Force, and Marines report to the Joint Forces 
Command.
    In addition, we have within the last year-and-a-half stood 
up a Joint Task Force (JTF) for civil support at USJFC which 
has the responsibility of handling incidents of weapons of mass 
destruction in these United States. On top of that, we have the 
USSPACECOM, which has sovereignty over Canada and the United 
States. I think what we need to do beyond that is, what I think 
you are suggesting is, to determine if there is a larger role 
for the DOD in handling potential incidents in the future, and 
exactly what that role will be, and that is one that, as I have 
indicated, I think will take a lot of debate.
    If you remember the first time this was brought up to my 
knowledge, and the debate was made public, there was a lot of 
concern about the DOD getting into areas that were 
traditionally those areas of civil responsibility. This is a 
huge question. What do you want your United States military to 
do for this country? We have been tip-toeing around that issue 
for quite sometime.
    My view is, this tragedy is going to help crystallize our 
thoughts, and we will have some thoughtful debate and find a 
way forward.
    Senator Collins. It is a difficult issue, about the 
military's appropriate role in our society, and I am struck by 
the fact that the attacks we experienced this week are being 
treated more as a matter of law enforcement. That the 
Department of Justice, for example, is the lead agency, rather 
than as an act of war, where the Department of Defense would 
be, I would assume, the lead agency. Do you have any comments 
on how we better define the role of the Department of Defense?
    General Myers. Well, as I indicated earlier, it was on the 
question of cyber warfare as well. It is the same issue as 
this. Is it a civil law enforcement issue, or national 
security? However you decide that question will decide who has 
primary responsibility. This is the same issue. I think the 
debate needs to occur, and we need to define our roles and 
responsibilities probably in ways that we have not yet today.
    I will tell you, though, that the cooperation among all the 
departments and agencies of this Government has been absolutely 
superb. Yes, this was a terrorist act, and the FBI and the 
Department of Justice are working the evidentiary piece of 
this, and that is appropriate. There are pieces being worked, 
of course, by the Department of Defense and the United States 
military, that are appropriate as well, and the cooperation 
between all of these agencies and departments is very, very 
good.
    Senator Collins. General, I recall that after the terrorist 
attack on the U.S.S. Cole, there was discussion that the 
military's force protection planning, while quite comprehensive 
and effective, had neglected part of the picture, that we had 
been prepared for asymmetric threats from ashore when a vessel 
was in a foreign port, but that we had not been properly 
prepared for an attack from small harbor vessels, and in some 
ways this came to mind when I thought about the attack on the 
Pentagon.
    It strikes me that a great deal of our force protection 
efforts have focused upon ensuring the security of facilities 
and military personnel overseas. Does what occurred this week 
at the Pentagon suggest that the Department needs to refocus 
its planning on force protection issues here in the United 
States itself?
    General Myers. Well, I think the answer to that is yes, and 
I think some of that has already begun. I think the force 
protection here in the United States has always been front and 
center.
    I know when I was at Peterson Field, Colorado, that was an 
issue for us. We conducted exercises throughout all the bases 
that were under our purview on just that very issue, and I know 
those Services are doing the same. I think the United States 
has just recently taken steps to start closing bases that were 
formerly open to the public, and closing them in the sense that 
you have go through an entrance procedure at a gate to meter 
the flow in and the flow out. So I think there are steps being 
taken.
    To other comments, what the Cole showed us, as you 
correctly described, Senator, is that there were some seams we 
had not thought about. But, it goes to the larger issue of how 
we deal with this in the first place. I will just tell you that 
what will keep me awake at night in this job are those things 
that we have not thought about. I mean, we have been surprised 
before. We were certainly surprised on Tuesday.
    There are probably more surprises out there, and my job, 
and the job of the Armed Forces and everybody that supports us, 
is to try to be as creative in our thinking as we can to try to 
plug these seams and these gaps.
    Having said that, we are deployed worldwide to do this 
Nation's bidding is we know that we will never be 100 percent 
effective, but what we ought to answer to is, have we thought 
about everything we can think about, are we doing all we can 
possibly do, have we asked for the resources to do that, and if 
I cannot say yes to that, then I am not doing my job.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Before I call on Senator Bill Nelson, let me just make an 
announcement for the information of members of the committee. 
There will be a bus at the corner of 1st and C Streets at 6:30 
this evening to take Members over to the Pentagon and to bring 
them back, and please let the committee's Chief Clerk know if 
you want to go.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. General 
Myers, Mrs. Myers, last week I moved into an apartment 
overlooking the Pentagon. Tuesday morning, I was here in the 
Capitol in a meeting with Senator Daschle, but my wife was at 
our apartment and she witnessed the whole thing, and each 
evening, as I have been home since then, I have witnessed the 
very heroic efforts of a lot of people out there as I get up 
periodically through the night, fitfully sleeping. My 
congratulations to you.
    Now, that leads to my question, to follow-up Senator 
Collins' line of questioning. The second World Trade Tower was 
hit shortly after 9:00, and the Pentagon was hit approximately 
40 minutes later. That is approximately--you would know 
specifically what the time line was. The crash that occurred in 
Pennsylvania, after the Newark westbound flight was turned 
around 180 degrees and started heading back to Washington, was 
approximately an hour after the World Trade Center second 
explosion.
    You said earlier in your testimony that we had not 
scrambled any military aircraft until after the Pentagon was 
hit, and so my question would be, why?
    General Myers. I think I had that right, that it was not 
until then. I would have to go back and review the exact time 
lines.
    Senator Bill Nelson. Perhaps we want to do this in 
executive session, but my question is an obvious one for not 
only this committee, but for the executive branch and the 
military establishment. If we knew that there was a general 
threat of terrorist activity, which we did, and we suddenly 
have two Trade Towers in New York being obviously hit by 
terrorist activity, of commercial airliners taken off-course 
from Boston to Los Angeles, then what happened to the response 
of the defense establishment, once we saw the diversion of the 
aircraft headed west from Dulles turning around 180 degrees, 
and likewise, in the aircraft taking off from Newark, and in 
flight turning 180 degrees, that is the question.
    I leave it to you as to how you would like to answer it, 
but we would like an answer.
    General Myers. After the second tower was hit, I spoke to 
the commander of NORAD, General Eberhart, and at that point I 
think the decision was to start launching aircraft.
    One of the things you have to understand, Senator, is that 
in our posture right now, we have many fewer aircraft on alert 
than we did during the height of the Cold War, so we have just 
a few bases around the perimeter of the United States, and so 
it is not just a question of launching aircraft, it is 
launching to do what? You have to have a specific threat. We 
are pretty good if the threat is coming from outside. We are 
not so good if the threat is coming from inside.
    In this case, I will have to get back to you for the 
record. My memory said that we had launched on the one that 
eventually crashed in Pennsylvania. We had gotten somebody 
close to it, as I recall. I will have to check that out.
    [The information referred to follows:]

    At 0846 EDT, American Airlines Flight 11 impacts the North Tower of 
the World Trade Center (WTC). At 0852 EDT, two F-15 aircraft from Otis 
AFB, MA, launched and were directed to establish a Combat Air Patrol 
(CAP) over New York City. At 0902 EDT, United Airlines Flight 175 
impacted the South Tower of the WTC. At this time, the two F-15 
aircraft were 71 miles away. At 0930, two F-16 aircraft launched from 
Langley AFB, VA, and were directed to establish a CAP over Washington, 
DC. At 0937 EDT, American Airlines Flight 77 crashed into the Pentagon. 
At this time the F-16s were 120 miles away. The F-16s established a 
defensive CAP over Washington, DC, at approximately 0950 EDT. At 1010 
EDT, United Airlines Flight 93 crashed in Somerset, PA.

    General Myers. I do not recall if that was the case for the 
one that had taken off from Dulles, but part of it is just 
where we are positioned around this country to do that kind of 
work, because that was never--and it goes back to Senator 
Collins' issue. This is one of the things that we are worried 
about. What is next? But our posture today is not one of the 
many sites, and the many tens of aircraft on alert. We just 
have a handful today.
    Senator Bill Nelson. That is one that we need to talk about 
together as we get prepared for the future.
    General Myers. Yes, sir.
    Senator Bill Nelson. Because we know of a new kind of 
threat now, unfortunately.
    My second question is this. You were talking about--
particularly from your experience, which I greatly value, 
having been the Space Command--our surveillance assets, and the 
necessity of having those assets there and working, and being 
able to get those assets to orbit.
    We have a risk factor of catastrophe on such launch 
vehicles like the Titan down to about 1 in 20. In the old days, 
when we first started launching, it was 1 in 5, but it is 1 in 
20, and that may necessitate the only other access to space 
that we have, which is the manned vehicle.
    I bring this up to you because just last week I was invited 
to have, as a member of the Science, Space and Technology 
Subcommittee of the Commerce Committee, a hearing on space 
shuttle safety. The essence of the hearing, and the unanimity 
of the five witnesses, was that the NASA budget has been 
starved sufficiently over the years and presently, such that 
space shuttle safety will be severely compromised in the 
future, not today, but in the future, and so I wanted you to 
know the conclusion of that hearing because in your new 
capacity as Chairman, it is clearly in your interest that you 
have reliable access to space when you need it, and although 
your payloads are configured for expendable booster rockets, 
should that access to space ever go down, you would need that 
backup, even though there would be some considerable time delay 
because of reconfiguration of the payloads, and so I would 
certainly commend you to have your folks start checking into 
this.
    I think, because of the actions of the tragedy of this 
week, that we are going to be able to now turn around that 
budget and start getting the shuttle upgrades over the course 
of the next 5 years in place in order to give the United States 
that reliable access to space that we have in the space 
transportation system.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    General Myers, just a very brief request. When I asked you 
what time it was that the FAA or the FBI notified the Defense 
Department after the two crashes into the World Trade Center, 
and you did not know the time, could you ask someone on your 
staff to try to get us that time so that we will have that 
either for this session here, or for the executive session?
    General Myers. Mr. Chairman, I just did that.
    Senator Bill Nelson. Mr. Chairman, may I just for the 
record, commenting from CNN on the timeline, 9:03 is the 
correct time that the United Airlines flight crashed into the 
South Tower of the World Trade Center, 9:43 is the time that 
American Airlines Flight 77 crashed into the Pentagon, and 
10:10 a.m. is the time that United Airlines Flight 93 crashed 
in Somerset County, Pennsylvania, so that was 40 minutes 
between the second tower being hit and the Pentagon crash, and 
it is an hour and 7 minutes until the crash occurred in 
Pennsylvania.
    Chairman Levin. The time that we do not have is when the 
Pentagon was notified, if they were, by the FAA, or the FBI, or 
any other agency, relative to any potential threat, or any 
planes having changed direction, or anything like that, and 
that is the time that you will give us.
    General Myers. I can answer that. At the time of the first 
impact on the World Trade Center, we stood up our crisis action 
team. That was done immediately, and so we stood it up, and we 
started talking to the Federal agencies. The time I do not know 
is when NORAD responded with the fighter aircraft. I do not 
know what time.
    Chairman Levin. Or the time that I asked you for, which is 
whether the FAA or FBI notified you that other planes had 
turned direction from their scheduled path, and were returning 
or aiming towards Washington, whether there was any notice from 
any of them, because that is such an obvious shortfall if there 
was not.
    In any event, more important, if you could get us that 
information.
    General Myers. I was not in the Pentagon at that time, so 
that part of it is a little hazy. After that, we started 
getting regular notifications through NORAD, FAA to NORAD on 
other flights that we were worried about, and knew about the 
one that crashed in Pennsylvania. I do not know, again, whether 
we had fighters scrambled on it.
    Chairman Levin. Senator Bunning is next.
    Senator Bunning. Thank you, Mr. Chairman. I join with my 
colleagues in thanking you and your wife for your service to 
our country.
    Tuesday's tragic events have again reminded us of the 
importance of a continuous vigilance in the defense of this 
Nation. You will have a very large job ahead of you to protect 
this great Nation from this and other threats. I look forward 
to working with you and your colleagues to fulfill our 
constitutional responsibility to protect our country.
    I want to get on to some other things that have not been 
discussed. Many air power advocates believe air power alone can 
accomplish our defense goals. They believe that ground and sea 
power should be minimalized at best. General Billy Mitchell 
subscribed to this kind of thinking, yet in every bombing 
campaign we have engaged in, our initial bombing asset 
assessments were more optimistic than when it was actually 
accomplished.
    No one here denies we should be the supreme commanders of 
the air. However, air power is just one component of the combat 
power. To be able to respond to all threats, we must have a 
balanced and combined armed forces. We must assert sea and land 
power as well as air power. The administration has heavily 
pushed air and space power. This is fine, because we need to 
continue improving our capabilities, but I am a bit concerned 
there are some who believe we can simply fight battles and wars 
with cruise missiles and laser-guided bombs.
    General Myers, how do you view the role of air power and 
all the other components that make up our Armed Services?
    General Myers. Senator, the United States needs the 
capability that all our Services bring to our Armed Forces, and 
I will just simply say that we cannot do without----
    Senator Bunning. Do you subscribe to the fact that we can 
bring people to submission just with air power?
    General Myers. I think it is going to take a balance of all 
our capabilities. One particular scenario may lend itself more 
to ground power than to air power. One scenario might be more 
air power dominant than ground power or naval power. That does 
not mean you do not need all those elements, so the President 
can have the flexibility to do what the objectives of the 
mission call for. So, I do not subscribe to just one element of 
our service power as adequate.
    Chairman Levin. Senator Bunning, would you withhold just 
for one moment? My estimate of when our executive session will 
start is now 5:00, because there are six Senators here who have 
at least the first round, so that is my best estimate as to 
when we will initiate that executive session, and Senator Ben 
Nelson, I have asked if he will now chair, so excuse the 
interruption, Senator Bunning.
    Senator Bunning. Tuesday's tragic events highlighted to us 
the threat posed by terrorism. For some time there has been a 
debate in academic circles and among the counterterrorism 
community as to whether the proper response to acts of 
terrorism should be a legal one, or threatening them as crimes, 
or military, treating them as acts of war. Which do you believe 
is the proper way to respond to acts of terrorism, whether 
abroad or here in our country?
    General Myers. Senator, this is an issue a little bit 
outside the military's lane, in the sense it is a policy and a 
political decision.
    Senator Bunning. Do you mean the military is not political, 
General? Is that what you are telling me?
    General Myers. Senator, I hope we are not political. What 
we need to do is provide the President the best military advice 
that we can.
    Senator Bunning. What I am getting at is, we do not want 
the end result of a terrorist attack on the United States to be 
handled in court, because we believe it is an act of war. Now, 
if it is an act of war, the military should be involved in 
determining how the punishment should be dealt out through the 
administration's use of the military. We surely do not want any 
terrorist you could think of to use a court system rather than 
a military solution to an act of terrorism, whether it be 
against U.S.S. Cole, or whether it be against the Pentagon.
    General Myers. I think the President has said it exactly 
right. We will essentially use all elements of national power 
to thwart this aggression, and that includes the use of the 
United States military.
    Senator Bunning. Would you call this an act of war, then, 
or not?
    General Myers. Again, I do not want to get into the 
semantics of whether it is an act of war. I mean, we can get 
wrapped around a legal----
    Senator Bunning. That is what I am afraid of.
    General Myers. I am not for doing that. I am for responding 
exactly as our national command authorities want us to respond, 
and if they make a decision that it is appropriate to use U.S. 
military force, I absolutely support that.
    Senator Bunning. The horrific acts against us on Tuesday 
will obviously require a reassessment of our defense 
priorities. If confirmed, what action would you take to ensure 
the security of our Nation, of our Armed Forces from terrorist 
attacks?
    General Myers. Senator, some of the ones we have already 
talked about, but I think we need to look really closely at our 
intelligence capabilities, our ability to analyze the 
information we get. We get a lot of information. It is the 
ability to analyze it, I think, and disseminate it in a timely 
manner that makes the difference.
    I think we need to look at our communications as well, and 
again I go back to the other issue of homeland security, 
homeland defense. There are a lot of unanswered questions in 
this area that we just have to wrestle to the ground. We cannot 
keep putting this off or we will not be prepared in the future.
    Senator Bunning. Thank you. My time has expired.
    Senator Ben Nelson. According to the chairman, who has 
departed, I am next in line, and so it may serve a useful 
purpose to call upon myself. But first, I would ask unanimous 
consent that the written statement of Senator Thurmond be 
included in the record.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman:
    Mr. Chairman, I want to extend my deepest sympathy to the grieving 
families throughout the United States on their tragic losses from the 
heinous attack on the United States by a group of terrorists. Life in 
our great Nation will never be the same. However, I am confident that 
this tragedy will make us stronger and more resolute to defend our 
democracy and life style.
    Mr. Chairman, I applaud your decision to hold this hearing. It 
reflects the resolve that is found throughout our Nation to carry on 
the functions of government, the economy, and life and not succumb to 
the terrorist. It is especially important that we act on General Myers' 
nomination to ensure our Armed Services to have the continuity of 
leadership to carry the fight to the home bases of the terrorist 
wherever they may be.
    General Myers, despite the tragic event of Tuesday, I want to 
extend my congratulations on your nomination to be the next Chairman of 
the Joint Chiefs of Staff. The challenges ahead of you will be immense, 
however, I am confident you are prepared to meet them. I pledge you my 
support and wish you success.

    Senator Ben Nelson. General Myers and Mrs. Myers, I 
certainly appreciate very much your public service and your 
commitment to the United States and to our country and to our 
citizens. I welcome you in advance of your confirmation to this 
very important position that you will occupy.
    I was looking very carefully at your biography to determine 
whether or not you had been stationed at Offutt to claim you as 
a Nebraskan. Somewhere along the line you may have escaped 
Offutt, but I am sure you visited there on occasion, and that 
is close enough.
    General Myers. Absolutely, Senator, many times.
    Senator Ben Nelson. The acts of Tuesday have probably in 
the most indelible way framed the issue for us for the future, 
and that is that national security requires that we be prepared 
both internationally and internally.
    There are those who would suggest that, as Senator Collins 
and Senator Bunning and others have said, we make certain that 
we not treat the acts of this week as some sort of a legal or 
criminal matter alone, that they must, in fact, be dealt with 
as a military matter with a military response to this 
situation.
    I am one of those. I believe we need to. I think it is 
important that we do the forensic work to establish the 
particulars of what happened here, and I commend those who are 
doing that. As a matter of fact, it leads me into the area of 
cooperation internally that I think may set, if you will, the 
protocol, if not the framework for internal national security.
    Before I do that, I note with some irony that it is 
important to document all of the time frames by using our most 
able informant, CNN, about the time frame and other 
particulars, but as we look at how we can bring together the 
intelligence community, as well as the military establishment 
and our law enforcement agencies, the FBI, the Justice 
Department, it is important to point out that the FBI is 
recognized and has stated four separate situations where the 
military is most likely to be called upon to assist in the 
domestic law enforcement situation, which involves: either a 
threat or an act of terrorism, including weapons of mass 
destruction terrorism, one to provide technical support and 
assistance to law enforcement and other crisis response 
personnel--obviously, I think that is being undertaken--
interdicting an event and apprehending those responsible, 
restoring law and order following an incident, and then 
finally, abating the consequences of a terrorist act.
    I hope that I am learning from you today not only your 
reaction to the events of this week, not only your 
determination and commitment, but perhaps some idea of what you 
would take, what you would bring to the table to bring about 
the kind of protection that we are looking for today to 
preserve our security for internal national defense as well as 
for international, national defense.
    Is there anything you have not said about that, that you 
might say to help us come to terms with the importance of it, 
and perhaps some general thoughts about what can be done?
    General Myers. Obviously, the importance of it is very 
high, and I think I would just go back to defining DOD's role 
inside the United States. That is one that legitimately 
requires very serious debate.
    I think the one thing we must do is continue to enhance our 
intelligence capabilities, not just inside the military, but in 
the civil agencies as well.
    Senator Ben Nelson. If it is not predictable, it is not 
protectable.
    General Myers. In some cases, that is true. In some cases, 
probably in many cases, that is true. So, that is again where I 
would focus our efforts. I think this review we have ongoing, 
on the whole intelligence community, is appropriate, and I 
think they will pick up on this and probably come out with some 
really good recommendations on how we can do a better job of 
coordinating and cooperating.
    The human side of our intelligence collection has been 
bolstered in recent years but could probably be bolstered some 
more. We just have to look at this whole spectrum of, when we 
gather all this information, how we can quickly analyze it and 
get it to people that need to know it. My personal view is, we 
are not as good as we need to be? Not because of this recent 
incident, but previous things that I have seen that indicate 
that we really need to work on that issue as well. So, that 
would primarily be where I would focus my efforts.
    Senator Ben Nelson. I have confidence in your ability to do 
this, particularly in the military setting, because whether it 
is true or not, I think the general public perception is, the 
military knows how to cooperate without stepping all over 
itself. At least you have given us that impression. I hope the 
reality is the same, even in spite of some exceptions, but it 
would seem that if there is any hope for it to occur, that you 
will be able to bring it about.
    General Myers. Senator Nelson, I think we can do that.
    Senator Ben Nelson. I thank you. Senator Hutchinson is 
next.
    Senator Hutchinson. Thank you, Senator Nelson.
    General Myers, congratulations. I am very pleased to 
support your nomination, and we have listened to Kansas, 
Missouri, Colorado, Nebraska, and Oklahoma all try to claim 
you. If Arkansas could, we would. I cannot, but I am very 
pleased to support your nomination. I know you will do a 
wonderful job, and thank you for your service to our Nation.
    I know some of my colleagues are going out to the Pentagon 
later today. I went out earlier today, and I join those who 
have been out there and those who have seen the work that is 
going on in commending those brave responders and those who are 
risking their lives. It is still an unstable situation, and I 
do not have reservations about the FBI being the lead on this 
and the Department of Justice, because I, like Senator Nelson, 
believe that we have to have the forensic, we have to have the 
evidentiary base in order for the military to take an action, 
for the commander in chief to order action, and I am convinced 
that when we have that, indeed, there will be a military 
response to the attack upon our Nation.
    I want to present a little scenario to you. What happened 
at the twin towers, while unprecedented in magnitude, is not 
unprecedented in the type of attack. As a Nation, we have had 
Oklahoma City, we have had attacks upon towers, the twin 
towers, we have had experience in plane crashes, and so while 
this is a national tragedy of unprecedented proportions, it is 
not unprecedented in the type of situation that we are dealing 
with, excavating and trying to uncover bodies. With the 
understanding that there is an ongoing debate as to the proper 
role of the military in protecting from domestic terrorist 
attack, if this attack had been, instead of airliners, flying 
bombs piercing the Pentagon, and piercing these towers, if the 
attack had been--and I think the estimate is it could be up to 
50 people who were coconspirators or participants in this.
    If there had been 50 people going into 50 U.S. cities 
carrying briefcases with biological pathogens, biological 
weapons, what would have been the consequences, and how 
vulnerable are we, and how prepared are we in your considered 
opinion?
    General Myers. Well, again, this is a hypothetical, but in 
the scenario you painted I think we are vulnerable, and I think 
the consequences could be great.
    Senator Hutchinson. Indeed, I agree. We are talking tens of 
thousands, which is absolutely unimaginable tragedy for our 
Nation. Our vulnerability to a biological or chemical attack 
could result in millions of victims, or to put it in military 
terms, had it been a private jet, a general aviation aircraft 
loaded with biological weapons, flying into the Pentagon, are 
we prepared, would we have had protection in that situation?
    General Myers. Limited protection, but obviously, there are 
a lot of folks around the Pentagon.
    Senator Hutchinson. I was very pleased, in the advance 
questions, by your response to the issue of vaccine production. 
You said, I support establishing a long-term reliable national 
vaccine production capability. The Department of Defense has a 
long-term need for reliable sources of FDA-approved vaccines 
for any biological health threat that may impact our soldiers, 
sailors, airmen, and marines now and in the future. I 
appreciate that, and I think that commitment is absolutely 
essential.
    You said earlier in your comments--you speak to anthrax, 
but you also expand that to recognizing that there are a lot of 
biological threats to force protection that confront us. What 
concerns me is that while we have a terrible shortage in 
vaccines now, we are not able to protect our men and women in 
uniform, that the estimates, if we go with the Government Owned 
Contractor Operated (GOCO) if the determination is that is the 
best way for us to address this, we are still talking years.
    I think we have to do better. I think we have to place a 
higher priority on that. We have to protect against this 
threat, and the added benefit of that kind of production 
capability will be to, I think, also provide protection to the 
American people, who are equally vulnerable, so I thank you for 
your commitment to that. I want to urge that it be given a 
priority under your leadership, and that we expedite it to the 
extent possible.
    We spend hours, and we did during defense authorization, on 
missile defense. I do not object to that, but we need to debate 
it. That is a serious issue that there is a lot of pros and 
cons we spend relatively little time talking about what we 
ought to be doing in the National commitment on vaccine 
production, and the cost, compared to missile defense, is 
minuscule.
    Any response or comment?
    General Myers. Senator Hutchinson, the only response is 
that this particular issue has been highlighted, again, in the 
DPG and in the QDR. I think it is a recognized shortfall, 
speaking largely now about the inability to confront weapons of 
mass destruction, including chemical and biological, that will 
get attention and increased resources. That is the intention at 
this point.
    Senator Hutchinson. Thank you, General.
    Senator Ben Nelson. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. General Myers, I 
share the admiration of my colleagues for your many years of 
very, very distinguished service to our Nation, and I also want 
to express my admiration for your candor and directness in your 
replies here today.
    In the 8 months I have been a Senator, in all the meetings 
I have sat through, your candor and directness stands out first 
among them all in marked contrast to some of the difficulties 
in getting candid and direct answers from others in the last 48 
or 60 hours, I would say, particularly, so thank you very much. 
I think that bodes very well for the working relationship you 
will have with the members of this body.
    In response to one of Senator Carnahan's questions, you 
brought up the role of the National Guard, which Minnesota has 
both the components of. We have Reserves as well, among other 
things, who certainly stand ready and willing to serve their 
country and have done so admirably, but who have expressed to 
me some concerns about their future assignments, which are now 
extending to as much as 5 months or so. Could you just 
outline--and I realize we have limited time to cover that whole 
terrain, but with the appropriate roles, as you alluded to, of 
those respective components?
    General Myers. I think we can state today that for the 
Armed Forces of the United States to carry out their missions 
around the world we cannot do it without the Reserve component, 
both the Reserve Forces and the National Guard forces. We just 
cannot do it.
    I will also say that I think each Service has worked very 
hard to mitigate the impact on the lives of our Reserve 
component individuals so they can contribute. So, it does not 
destroy their job and their lives that they were leading.
    We probably have not done that perfectly, and that will 
continually need to be evaluated, but they are absolutely 
essential to our conduct of our missions today.
    Senator Dayton. Thank you. I was intrigued by your answer 
on page 20 of your response about, you believe it is in the 
national security interest of the United States that all land-
based ICBMs be de-MIRVed. You said there are no significant 
military advantages to the elimination of MIRVed land-based 
ICBMs, which has particular relevance given President Putin's 
comments that that might be a Soviet response to us pulling out 
of the ABM Treaty. Can you elaborate on that, sir?
    General Myers. As I recall that question, I think I was 
talking about the significance of U.S. missiles. We have de-
MIRVed some under previous agreements, and we still have some 
that are MIRVed.
    Senator Dayton. Maybe I am misinterpreting. Is this because 
the question that preceded that said, referred to the Russians, 
that they may not de-Multiple Independently-Targetable Reentry 
Vehicle (MIRV), and you pointed out that that START II Treaty 
is not in force, so they are not required to do so, so maybe I 
misunderstood.
    Let me just rephrase it, then, and say, would that be of 
strategic and security concern to the United States, if Russia 
took the position that it would not de-MIRV its nuclear 
warheads in response to something such as withdrawing from the 
ABM Treaty?
    General Myers. I do not think the issue of whether they are 
MIRVed or de-MIRVed is really the issue. The issue to me would 
be, first of all, what is our strategic relationship with 
Russia. Today, I think it is quite different than what it was, 
obviously, during the Cold War. The second point would be that 
it would be the overall levels of warheads that would be of 
concern.
    The missile defense system is conceived as one of limited 
defense. So, whether they are MIRVed or de-MIRVed there is not 
really an issue about overwhelming defenses, because it will 
probably never be the case that we will have a defense against 
a large attack. I would be more concerned with the total number 
of warheads that are on delivery vehicles in accordance with 
presidential guidance, trying to take that to the lowest level 
possible consistent with our national security needs.
    Senator Dayton. Finally, I was very impressed with your 
statement about the lessons you learned in your previous 
positions. You said first the Armed Forces are not made up of 
people, rather that the people are the Armed Forces. Sometimes 
we lose that focus. I thought that was very well-stated, and 
very appropriately so.
    This committee in my brief time here has focused itself on 
meeting some of the needs that have not been sufficiently 
addressed in support of the men and women who make up our Armed 
Forces. I know that the authorization bill we are going to be 
acting on next week will take a further step forward. What else 
can we do, or must we do, to provide the kind of support they 
deserve?
    General Myers. I think, Senator, I absolutely agree with 
you. We have made great strides, and this committee has led the 
charge. In fact, Congress has led the charge in making sure 
that we have appropriate pay. We have worked some housing 
issues. We have worked medical benefits. These are issues, 
though, that if you do not keep working them they are going 
backwards. So, pay comparability is an issue we need to 
continue to work, and you saw the fiscal year 2002, the bill 
you have just all worked very hard on. That was the big issue.
    The housing issue is not only the adequacy of the housing 
that we provide, but the housing pay to our folks to make sure 
there are not exhorbitant out-of-pocket expenses for the 
housing needs. Then I would say access to medical care 
continues to be an issue. As we try to find that right balance 
between what we do in-service and what we do with managed care, 
I am sure your constituents have probably told you there are 
issues of access there that we need to continue to work.
    Senator Dayton. Thank you very much. I am assured that you 
will help us to make sure we do not go backward, but also that 
we can move forward, and also to apply that consideration to 
the Reserves as well, and the National Guard, the men and women 
who make those up.
    General Myers. Any time I talk about our Armed Forces I am 
talking about the total team, which includes, by the way, those 
civilians, those Department of Defense civilians, some of whom 
were tragically killed in the recent attack on the Pentagon. We 
are one team.
    Senator Dayton. Well-stated. Thank you. Thank you, Mr. 
Chairman.
    Senator Ben Nelson. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. Congratulations, 
General Myers. It is a great honor to be given this high post, 
and I know that you will give your very best to it. I also 
congratulate your wife, and both of you for your great career 
together. Everybody wants to claim a piece of your background. 
I certainly will. I note that you attended Maxwell Air War 
College in Montgomery, Alabama, and earned your master's degree 
from America's great university, Auburn University, so we are 
delighted to see you receive this great and high honor.
    I was at the Pentagon yesterday and during the course of 
that had the opportunity to talk to a lieutenant colonel who 
was in his office when the plane hit on that very side. He said 
he was blown across the room, up against the wall. He went 
outside and realized just how bad it was, and he and a sergeant 
broke out a window and went back in. He described one person 
coming out all in flames that they had to put down and put the 
fire out.
    That gentleman was saying over and over again, there are 
others in there, please go back and help those who are in 
there, and they went back repeatedly until the fire marshall 
told them not to go back in. This is the kind of courage, 
commitment, and dedication to unity and to one another that I 
think is characteristic of our Armed Forces, and I do believe 
we have the greatest Armed Forces in the world, and I know that 
you are very honored to be able to lead that.
    General Myers. Definitely, Senator.
    Senator Sessions. I thought I would just ask you a few 
questions that are real fundamental, and will go to your 
challenges in your job, not unlike what you and I discussed 
when you came by for a visit, and that is basically about our 
budget.
    President Bush this year is proposing, and will achieve, I 
believe, a $38 billion increase in our defense budget from 
$290-something last year to nearly $330 billion this year with 
a supplemental in between, and so it is a major increase. 
However, we have committed to do more for our men and women in 
uniform, their pay and benefits, and much more needs to be 
addressed.
    It is distressing to me, and I will ask you if you will 
agree, that even with this largest increase we have had in over 
a decade, we still are not able to do as much as we need to be 
doing to recapitalize our aircraft, our ships, and our Army and 
Marine equipment.
    General Myers. Senator Sessions, that is absolutely the 
case. The account, the modernization account, if you will, has 
for a lot of this past decade been used to ensure current 
readiness and current operations. So, we borrowed from that 
account to make sure that we were ready to do what we have to 
do today.
    We are reaching the point now where our shipbuilding 
accounts, our aircraft modernization accounts, our Army 
transformation accounts are short, and the average age of our 
aircraft continues to go up. Things are just getting older. The 
consequences of that are that it costs more to maintain them, 
and that they are not always as ready as we want them to be 
when we have to call upon them.
    That is a major challenge, how to balance our modernization 
and transformation needs with our current readiness needs and 
our personnel needs, the three major elements of our budget. So 
I agree with you, that is the challenge. That is one of the 
things that I feel I have to focus on, and have to provide 
advice to the Secretary as required to do so.
    Senator Sessions. As Chairman of the Joint Chiefs, I would 
suggest long-term service to the Department of Defense. That 
would be your greatest challenge, would you agree, how to 
handle our transformation and recapitalization?
    General Myers. Yes, Senator, it has to be right up there. I 
would mention one other, and that is to make sure that the 
national security strategy, the national military strategy, and 
our defense strategy are in balance with the force structure 
that we have to do the job. It kind of goes hand-in-hand with 
what you are talking about, but those are probably the biggest 
challenges.
    Senator Sessions. Well, I think that is well said, so let 
us look at this. I have heard several talking heads in the last 
several days say this terrorist attack is what we are going to 
see in the future. It is the 21st century war. I believe 
Secretary Rumsfeld has said something like that.
    We know that does not mean there will not be any other kind 
of war, so we have to be prepared for others, but it certainly 
I think has an element of the truth to it, that we are in an 
asymmetric threat situation that presents new and unique 
challenges different from the time when we faced the Russians 
on the plains of Europe.
    Question: do you think the leaders of the services fully 
understand that we do need to make a transformation? Do they 
also understand that there will not be as much money as we 
would like to have to hold onto everything that we may like to 
do, and is there enough commitment within the uniformed 
services to make the transformations that will be painful at 
times to get us ready to handle the threats we will be seeing 
in the future?
    General Myers. Senator Sessions, you know as well as I do, 
the Service Chiefs, members of the Joint Chiefs of Staff that I 
have been with, here, for the last year and a half, are the 
best this country has to offer. They are very smart men, and 
they understand very well the challenges of the future. They 
understand the need to modernize. They understand the need to 
transform their capabilities to be responsive to the asymmetric 
threats that we have faced and that we will face, and I think 
they are absolutely the right ones to do that.
    The question is always, this is a tough balance between 
today's problem and tomorrow's challenge, and it is one--I 
mean, we wrestle with every day, but they are absolutely the 
right people to do it, and they are committed to do it.
    Senator Sessions. I think you are going to have to lead 
that, and at times some are going to have to give up the 
cherished dreams for their service. Some of us in Congress may 
have to find some more money than we actually have been able to 
find so far, and even with this large increase, it is still not 
enough, so I think it is going to take a combination of change, 
refitting for the future.
    I believe Secretary Rumsfeld is doing the right thing. I 
think he has to challenge the old-established thinking. I hope 
you will help him in that.
    General Myers. Sir, I will. I am committed to that as well.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, Senator Sessions. OK, it is 
5:00. We are going to move to Hart 219, which is out that door, 
and we will ask those Senators who are within the sound of my 
voice to come there. Secretary Wolfowitz is I believe within 
earshot, and we will notify him.
    One other important announcement which is going to affect 
the length of this executive session. There is going to be a 
5:20 roll call vote on the Harkin amendment on the Commerce, 
State, Justice Appropriations Bill, which means we are going to 
have perhaps a half-hour for our executive session, so we are 
going to begin immediately.
    [Whereupon, at 5:04 p.m. the committee adjourned.]

    [Prepared questions submitted to Gen. Richard B. Myers, 
USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]

                               The Vice Chairman of
                                 the Joint Chiefs of Staff,
                                    Washington, DC, Sept. 10, 2001.
The Hon. Carl Levin, Chairman,
Senate Armed Services Committee,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: I am greatly honored by the President's 
confidence in nominating me as the Chairman of the Joint Chiefs of 
Staff. I pledge my full support to our Nation, the President, Congress, 
the Secretary of Defense, and the men and women of our Armed Forces.
    My responses to the questions of your 5 September 2001 letter are 
attached.
            Sincerely,
                                          Richard B. Myers,
                                                     General, USAF.
Attachment:
Question Responses.

cc: Senator John Warner,
     Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have previously answered the 
committee's policy questions on this subject in connection with your 
nominations to be Commander in Chief, U.S. Space Command and Vice 
Chairman of the Joint Chiefs of Staff.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified on October 27, 1999?
    Answer. No. My views have not changed. I still believe that the 
defense reforms initiated by Goldwater-Nichols were the appropriate 
antidote. Today, the reforms have strengthened the warfighting 
capabilities of our combatant commands by facilitating our evolution 
into a truly joint force.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the national security strategy? If so, what areas do you 
believe it might be appropriate to address in these modifications?
    Answer. I believe Goldwater-Nichols has provided the necessary 
flexibility to allow us to conduct business the way we should--jointly. 
There are some necessary mechanical issues related to joint officer 
management and joint professional military education that must be 
addressed.
    Question. Based upon your experience as Commander in Chief, U.S. 
Space Command and Vice Chairman of the Joint Chiefs of Staff, do you 
believe that the roles of the combatant commanders and the Chairman of 
the Joint Chiefs of Staff under the Goldwater-Nichols legislation are 
appropriate and that the policies and procedures in existence allow 
those roles to be fulfilled?
    Answer. Yes.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Chairman of the Joint Chiefs of Staff?
    Answer. The Chairman is the principal military advisor to the 
National Command Authorities (NCA) and National Security Council (NSC), 
as established by Title 10. The Chairman is just that--the principal 
military advisor--and not, according to the law, in the chain of 
command that runs from the NCA directly to each combatant commander. 
The law allows the President to direct that communications between the 
NCA and the Combatant commanders be transmitted through the Chairman. 
The current Unified Command Plan (UCP) directs this method of 
communication, as have all the UCPs since Goldwater-Nichols was 
enacted. This method of transmission of information ensures that the 
Chairman is fully involved so that he can provide the NCA with his best 
military advice.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The United States military has fully prepared me for this 
position through myriad duty assignments working with the greatest 
soldiers, sailors, airmen, marines, and coastguardsmen in the world. 
During my career, I have commanded at the squadron, weapons school, 
wing, numbered air force, major, subunified, and unified command 
levels. I served as the Assistant to the Chairman of the Joint Chiefs 
of Staff where I gained an even greater understanding of Washington's 
interagency processes. Of course, during the last year and a half I 
have served as the Vice Chairman of the Joint Chiefs of Staff, working 
under the superb leadership and guidance of Hugh Shelton, and dealing 
with the full spectrum of issues and crises I can expect to face should 
I be confirmed as the Chairman.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Chairman of the Joint 
Chiefs of Staff?
    Answer. No.
    Question. Do you expect the President to continue to direct that 
communications to the combatant commanders be transmitted through you, 
if you are confirmed as Chairman of the Joint Chiefs of Staff?
    Answer. This time-tested method of communication is critical to the 
Chairman's ability to fulfill his statutory role and responsibilities 
as principal military advisor to the NCA and NSC. The Chairman must be 
kept informed and this is the most effective way to do it. This 
communications process is equally critical to the Chairman's ability to 
perform other NCA-assigned responsibilities such as assisting the NCA 
in the performance of their command functions, overseeing the 
activities of the combatant commands, and serving as spokesman for the 
combatant commanders especially on the operational requirements of 
their commands.
    Question. Do you expect the Secretary of Defense to continue to 
assign responsibilities for overseeing the activities of the combatant 
commands to you, if you are confirmed as Chairman of the Joint Chiefs 
of Staff?
    Answer. This is a critical role and is provided for in current DOD 
directives.
                             relationships
    Question. Section 151(b) of title 10, United States Code, provides 
that the Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. Other sections of law and traditional 
practice, however, establish important relationships.
    Please describe your understanding of the relationship of the 
Chairman of the Joint Chiefs of Staff to the following officials:
    a. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters which the Secretary is authorized to act. As 
such, the relationship of the Chairman to the Deputy Secretary is 
similar to that with the Secretary.
    Question. b. The Under Secretaries of Defense.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary regarding matters related to 
their functional areas. Within their areas, Under Secretaries exercise 
policy and oversight functions. In discharging their responsibilities, 
the Under Secretaries may issue instructions and directive memoranda 
that implement policy approved by the Secretary. These instructions and 
directives are applicable to all DOD components. They may also obtain 
reports and information necessary to carry out their functions. As with 
other communications between the NCA and combatant commanders, 
communications between the Under Secretaries and combatant commanders 
should be transmitted through the Chairman of the Joint Chiefs of 
Staff.
    Question. c. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for C\3\I, Public Affairs, Legislative Affairs, and Intelligence 
Oversight, all Assistant Secretaries of Defense are subordinate to one 
of the Under Secretaries of Defense. This means any relationship with 
an Assistant Secretary of Defense would be through the Under Secretary 
of Defense for Policy, the Under Secretary of Defense for Personnel and 
Readiness, the Under Secretary of Defense for Acquisition, Technology 
and Under Secretary of Defense (Comptroller/Chief Financial Officer). 
Since the Assistant Secretaries of Defense for C\3\I, Public Affairs 
and Legislative Affairs are the Secretary's principal staff assistants 
and advisors for matters within their functional areas, relations 
between the Chairman and ASD(C\3\I), ASD(PA) and ASD(LA) would be 
conducted along the same lines as those discussed above regarding 
relations with the various Under Secretaries of Defense.
    Question. d. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. Title 10, United States Code, section 154(c) states that 
the Vice Chairman performs the duties prescribed for him as a member of 
the Joint Chiefs of Staff as well as those duties prescribed by the 
Chairman, with the approval of the Secretary of Defense. If confirmed, 
I do not foresee making significant changes to the duties currently 
carried out by the Vice Chairman. In addition to the duties as a member 
of the Joint Chiefs of Staff, the Vice Chairman serves on the 
Chairman's behalf as the Chairman of the Joint Requirements Oversight 
Council (JROC) and is his representative to the National Security 
Council Deputies Committee. Further, the Vice Chairman has the 
responsibility to stay abreast of ongoing operations and policy 
deliberations, so that he is able to provide appropriate military 
advice to the President, the Secretary of Defense, and the NSC and also 
act as Chairman in the Chairman's absence.
    Question. e. The Secretaries of the Military Departments.
    Answer. Title 10, United States Code, section 165 provides that, 
subject to the authority, direction and control of the Secretary of 
Defense, and subject to the authority of the combatant commanders, the 
Secretaries of the Military Departments are responsible for the 
administration and support of the forces they have assigned to 
combatant commands. The Chairman, or the Vice Chairman when directed or 
when acting as the Chairman, advises the Secretary of Defense on the 
extent to which program recommendations and budget proposals of the 
Military Departments conform with priorities in strategic plans and 
with the priorities established for requirements of the combatant 
commands.
    Question. f. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. They 
now have two significant roles. First and foremost, they are 
responsible for the organization, training, and equipping of their 
respective Service. With the full support and cooperation of the 
Service Chiefs, the Combatant commanders can ensure the preparedness of 
assigned forces for missions directed by the NCA. Next, as members of 
the Joint Chiefs of Staff, the Service Chiefs have a legal obligation 
to provide military advice. Individually and collectively, the Joint 
Chiefs are a source of experience and judgment for the Chairman, the 
combatant commanders and the NCA. If confirmed, I will continue to work 
closely and meet routinely with the Service Chiefs as we work together 
to fulfill the warfighters' requirements.
    Question. g. The Combatant Commanders.
    Answer. The combatant commanders are the warfighters. By law and to 
the extent directed by the Secretary of Defense, the Chairman serves as 
spokesman for the combatant commanders and is charged with overseeing 
their activities. He provides a vital linkage between the combatant 
commanders and other elements of the Department of Defense. If 
confirmed, I will have frequent dialogue with the CINCs and serve as 
their advocate and spokesman.
                             transformation
    Question. If confirmed, you will be assuming your duties as the 
Chairman of the Joint Chiefs of Staff at a time of great expectations 
for the transformation of our armed forces to meet new and emerging 
threats.
    Please explain what the term ``transformation'' means to you and 
the role that technology and experimentation, including joint 
experimentation, should play in transforming our armed forces?
    Answer. Transformation is an on-going process for conceptualizing, 
developing and fielding new combinations of operational concepts, 
capabilities, organizational arrangements and training regimens that 
provide U.S. joint forces with advantages that fundamentally change our 
own, or render less effective others, ways of waging war. It is usually 
evolutionary but can be revolutionary. Technology and material-based 
solutions are only one element of transformation. True transformation 
can only occur through a co-evolution of change recommendations within 
all the critical joint force considerations of doctrine, organization, 
training, material, leadership and education, personnel and facilities 
(DOTMLPF). A comprehensive DOTMLPF approach is necessary to field and 
employ future capabilities that fundamentally change and improve our 
operational and warfighting effectiveness.
    A key feature for the achieving joint transformation will be the 
clear identification and delineation of the roles and responsibilities 
of the Office of the Secretary of Defense, the Combatant Commands, the 
Services, JFCOM and the Joint Staff to ensure unity of effort under the 
Secretary of Defense.
    Joint transformation also requires changes within the three 
supporting processes of requirements generation, acquisition, and the 
planning, programming, and budgeting system processes. Over the past 
year, the military has made significant strides in the improvement of 
the requirements generation process through the evolving strategic 
integration role of the Joint Requirements Oversight Council (JROC). 
The Requirements Generation System (RGS) process was shifted from a 
threat-based system to a joint operational concept and capabilities-
based system. Additionally, the process was adapted to enable the 
introduction and consideration of transformation initiatives from a 
variety of sources, to include Joint and Service experimentation. The 
Secretary of Defense is working hard to streamline the acquisition and 
PPBS systems to facilitate transformation. Further, modernization is a 
key part in the transformation equation.
    Question. Are you confident that the defense review process, now 
concluding, will outline a clear vision for transformation within the 
Department and understandable mechanisms for measuring progress toward 
accomplishing stated transformation goals?
    Answer. The Secretary of Defense has received a comprehensive 
overview of current transformation efforts and processes underway 
within the Office of the Secretary of Defense, Combatant Commands, 
JROC, JFCOM and the Services as a frame of reference. Significant 
process reform has already been accomplished and the mechanisms to 
nurture develop and eventually field new joint operational concepts and 
capabilities are in place.
    The defense review process does provide a solid foundation for 
pursuing and achieving the joint and Service transformation desires of 
the administration, Congress and the military Services. One of the many 
challenges is the development of a comprehensive DOD strategy for the 
transformation of the Defense Agencies and the military Services. Unity 
of effort is essential with clear delineation of the roles and 
responsibilities within all the Office of the Secretary of Defense, 
Service, Combatant Command, Joint Staff and JFCOM initiatives to insure 
the development of a more integrated and highly effective joint force.
    Transformation is a long-term effort within an organizing construct 
that defines the joint operational concepts, capabilities and process 
metrics that will focus our efforts and enable us to measure progress.
                              joint force
    Question. Retired Air Force General James McCarthy, who headed a 
study on Defense Transformation for Secretary Rumsfeld, recently stated 
that, ``Today we do not have a truly joint force'' and, ``The problem 
is we have not identified a way to organize, train and equip joint 
forces.''
    How would you respond to those statements?
    Answer. We have come a long way since 1985, but we still are not 
where we need to be. The Services need to field truly `plug and play' 
forces while JFCOM develops a functional, standardized joint force 
headquarters so we all can work as a true joint team. Equipment needs 
to be interoperable so we can share information and act decisively on 
that information as a true joint team. We need to better integrate 
Service specific training and joint command and control so we can train 
as a true joint team like we fight. Of course, the military view of 
jointness is not the absence of Service uniqueness. Instead the 
approach to jointness within the U.S. military emphasizes the following 
key elements:

        <bullet> it leverages service core competencies to produce a 
        comprehensive joint capability;
        <bullet> it relies on the integration of the Active and Reserve 
        components for a total joint force;
        <bullet> it is focused at the strategic and operational levels 
        of war;
        <bullet> it retains necessary redundancy with minimal 
        duplication of capability in Service provided forces; and
        <bullet> it effectively operates within the interagency and 
        multinational environments.

    The current law and force planning development system uses the 
military Services to organize, train, equip and provide joint-capable 
forces to combatant commanders. The core competencies of each Service 
reflect their unique capabilities and ensure continuation of both the 
ethos and the means for future operational and warfighting success. As 
we seek to transform the armed forces, we do not want to lose the 
characteristics that have produced the world's premier warfighting 
Services in their operational dimension. Our challenge is to develop a 
future joint force with joint core competencies that enable, integrate 
and employ Service, interagency and multinational core competencies for 
the achievement of desired effects and outcomes.
    The development of complementary joint and Service core 
competencies will provide a basis for fielding a more capable, 
effective and integrated future joint force from Service force 
providers. In that effort we are also addressing joint processes and 
standards across the critical joint force development considerations of 
doctrine, organizations, training, material, leadership and education, 
personnel, and facilities.
                          anthrax vaccination
    Question. DOD officials have testified that anthrax is the greatest 
biological weapon threat to our military force because it is highly 
lethal, easy to produce in large quantities, and remains viable over 
long periods of time. The anthrax vaccination program has been 
curtailed because of limited quantities of FDA-approved vaccine.
    Do you continue to support the policy of vaccinating our service 
men and women to immunize them against the use of weaponized anthrax?
    Answer. I strongly support any policy protecting our service 
members against anything that puts them at risk. As you stated in the 
question, and as was recently re-confirmed with our warfighting 
commanders, anthrax is the agent of highest concern in biological 
warfare. The pre-exposure vaccination program is the safest and most 
effective countermeasure in existence today and is the medical 
cornerstone of our integrated defense strategy to counter this very 
real threat.
    Question. If confirmed, will you support full implementation of the 
Anthrax Vaccine Immunization Program if sufficient supplies of FDA-
approved anthrax vaccine become available?
    Answer. Yes. The protection of our soldiers, sailors, airmen, and 
marines is a top priority. The vaccine is a safe and effective medical 
pre-exposure countermeasure to anthrax. It's the right thing to do.
    Question. The difficulty the Department has experienced in 
procuring a reliable source of FDA-approved anthrax vaccine has 
resulted in the Department examining alternative sources of the 
vaccine, including the establishment of a government-owned, contractor-
operated production facility; a contractor-owned, contractor-operated 
production facility; and other options.
    If confirmed, would you support establishment of an additional 
dedicated vaccine production facility (whether a GOCO or private 
industry source)?
    Answer. I support establishing a long-term, reliable national 
vaccine production capability. The Department of Defense has a long 
term need for reliable sources of FDA-approved vaccines for any 
biological health threat that may impact our soldiers, sailors, airman, 
and marines now and in the future. How it is done is a policy decision.
                             paradigm shift
    Question. During Deputy Secretary Wolfowitz's August 8 and August 
16 press conferences in which you participated, he referred to a 
consensus on a ``very significant paradigm shift,'' which appears to 
relate to changes in strategy, risk assessment, and warfighting 
requirements.
    Would you describe the elements of this ``very significant paradigm 
shift'' and indicate the areas, such as force structure, that could be 
impacted by it?
    Answer. In the past, DOD focused on building a force capable of 
defeating the threat posed by two, nearly simultaneous major theater 
wars while also handling smaller scale contingencies. We essentially 
sized our force to fight two very distant foes, Iraq and North Korea. 
This approach has been overshadowed by the uncertainties of the 
changing strategic landscape, and contributed to an imbalance between 
our previous strategy and the force structure to execute that strategy. 
The world continues to grow more dangerous and more complex, limiting 
our ability to forecast who might be possible adversaries. This set of 
circumstances requires the ``paradigm shift'' that the Deputy Secretary 
of Defense referred to in his remarks. The Department will, I believe, 
be recommending a new, broader strategy to address not only the need to 
fight and decisively win major theater war, but also the growing need 
to defend our territory. It will also account for myriad other tasks, 
including small-scale contingencies, we have asked our forces to do. 
These small-scale contingencies have been driving up the tempo of our 
people and equipment. This also drives us to transition from a near 
term, threat-based approach to a capabilities-based approach required 
to execute a wider range of possible missions in the mid- and long-
term. This paradigm shift requires we address not only the warfighting 
requirements for today, but simultaneously set the stage for building a 
force that can deal with possible future scenarios that are not in our 
current planning set. We must then carefully balance between 
modernizing our current fleets of aging weapons systems and selectively 
transforming the Department in ways that will allow us to successfully 
address an entirely new set of threats in the future.
                         science and technology
    Question. The fiscal year 2002 budget request remains short of the 
Department's stated 3 percent goal for defense science and technology.
    Do you believe that the request of $8.8 billion is adequate to meet 
the military's need for innovative technologies?
    Answer. To meet the 3 percent objective in fiscal year 2002 would 
have required a total of $9.9 billion. The current program of $8.8 
billion represents 2.7 percent of the total DOD budget. It reflects the 
priorities established in the President's Blueprint Budget by providing 
emphasis on rotorcraft technologies; unmanned underwater vehicle (UUV) 
research; unmanned combat air vehicle (UCAV) development; exploration 
of technologies in support of the Next Generation Bomber (NGB) for the 
Air Force and the Future Combat System (FCS) for the Army; development 
of foliage penetration radar; support of an accelerated Joint 
Experimentation schedule; chem-bio defense modeling and standoff 
detection; and high speed sealift development.
                         use of military force
    Question. If confirmed, you will be responsible for providing 
military advice on the use of military force and the other instruments 
of U.S. power.
    What factors do you believe should be considered when contemplating 
the use of force?
    Answer. The National Command Authorities (NCA) will decide when 
U.S. Armed Forces are employed in a given situation. In consultation 
with the Service Chiefs and combatant commanders, and based on a clear 
definition of the mission and interagency and multinational resources 
available, I expect to advise the NCA in a number of areas. Among them 
are the effectiveness of the military instrument to achieve the desired 
national security objectives, employment options and expected costs, 
and the potential impact on the force's ability to respond to other 
requirements. I would also provide an assessment of any long-term 
effects on operations and personnel tempo.
                                 space
    Question. What are your views on weapons in space?
    Answer. U.S. Space Command has a ``Force Application'' mission that 
requires them to plan for and conduct research and development of 
space-based systems as insurance should the nature of threats and 
opportunities significantly change. I believe this is a sound approach.
    Question. Do you support placing offensive weapons in space?
    Answer. Placing weapons is space is a policy decision of the NCA. 
Consistent with national laws, policy and international treaty 
commitments, I support research and development into weapons options, 
should we 1 day be directed to deploy such capabilities.
    Question. Under what circumstances and for what purposes would you 
place offensive weapons in space?
    Answer. It's difficult to say under what specific circumstances and 
for what purposes we would do that. However, if it were determined that 
offensive weapons in space were the appropriate means to protect our 
national security interests then the NCA should consider them.
    Question. Describe your understanding of the current U.S. military 
space doctrine as it pertains to the deployment of weapons in space.
    Answer. The placement of nuclear weapons or other weapons of mass 
destruction in orbit around the earth, and use of the moon or other 
celestial bodies for military purposes are clearly prohibited. Space 
Doctrine, Joint Publication 3-14, addresses space control and generally 
addresses force application; however, no such weapons exist. Therefore, 
the specific deployment of weapons in space is not addressed.
    Question. Do you support current U.S. space doctrine as it relates 
to space control?
    Answer. Yes. Our space control doctrine is consistent with our 
long-standing air and sea doctrines--to ensure freedom of action for 
ourselves and our allies, and to deny it, where appropriate, to 
potential adversaries.
    Question. Do you believe that achieving control of space will 
require deploying offensive weapons in space?
    Answer. Not necessarily. The easiest way to ensure space control is 
to interdict satellite ground stations or their communications links.
    Question. Describe your understanding of other methods and weapons 
systems that might be used to achieve space control objectives.
    Answer. We use four primary methods for space control: 
surveillance, protection, prevention, and negation. Tactics vary from 
attacks with conventional munitions on ground sites or electronic 
warfare attacks on their links, to encryption, to fielding redundancy 
in our systems, to our ground-based space surveillance systems. Any 
weapons system that can be used in these tactics are appropriate to 
achieve space control objectives.
    Question. Do you support increased funding and focus on improving 
space situational awareness? How would you increase situational 
awareness?
    Answer. Situational awareness is key to operating effectively in 
any medium. Modernization of our space surveillance capabilities is key 
to increasing our situational awareness.
    Question. Is such an increased awareness a prerequisite to placing 
offensive weapons in space?
    Answer. Space situational awareness is much more than an enabler 
for offensive weapons in space. The foundation of all space missions is 
space control.
    Question. Do you believe that threats to our space assets are 
increasing?
    Answer. Yes, just like any other technological advancement 
throughout history, we can expect an increasing challenge for what to 
us is a key warfighting capability.
    Question. Do you agree with the Space Commission assessment that 
the United States is ``an attractive candidate for a `space Pearl 
Harbor' ''?
    Answer. I think the Space Commission did the nation a service by 
bringing such a possibility into the national debate about the future 
of space. The lesson we learned from Pearl Harbor is that the only way 
we can avoid repeating that experience is if we anticipate its 
possibility again, and are ready for the challenge.
    Question. Do you believe that improved space surveillance and space 
situational awareness can reduce the vulnerability of our space assets?
    Answer. Yes.
    Question. Do you believe that there is a need to establish an 
international framework that would be intended to ensure continued 
access to space for peaceful purposes?
    Answer. The Outer Space Treaty of 1967 provides such a framework. 
It has been the bedrock of the peaceful use of space. I do not 
currently see the need for any new treaty or international agreement 
that would address military uses of space.
    Question. What are your views on legislative implementation of the 
recommendations of the Space Commission?
    Answer. The Secretary of Defense is currently reviewing S.1368, 
dealing with the recommendations of the Space Commission. It would be 
inappropriate for me to comment on it until this review is complete.
                        nuclear force structure
    Question. Do you believe that the Strategic Triad should be 
maintained, or that we should consider eliminating any portion of the 
triad?
    Answer. The Nuclear Posture Review (NPR) is examining the role of 
the TRIAD and will make recommendations on its composition. The TRIAD 
has been the foundation of our nuclear deterrent force posture for over 
30 years. The inherent capabilities of a robust TRIAD ensure against a 
catastrophic failure of any one leg of our forces, thereby assuring 
that the U.S. is always capable of responding to any potential threat. 
The NPR is examining the unique contributions of each leg.
    Question. Do you believe that the United States can make reductions 
in nuclear weapons below those levels included in START II and still 
meet current nuclear deterrence guidance?
    Answer. Nuclear weapons levels as outlined in the START II Treaty 
were agreed to in the context of bilateral arms control with the former 
Soviet Union. The START II Treaty has not entered into force due to 
conditions added by them during their ratification (April 2000). The 
ongoing Nuclear Posture Review mandated by Congress is currently 
examining the strategy and scope of potential reductions. Therefore, it 
is premature to state at this time what level of reductions can be 
made.
    Question. Can the targeting requirements derived from current 
nuclear deterrence guidance be met at a level of 2,000-2,500 warheads?
    Answer. It is prudent to complete the examination of our national 
strategy and nuclear deterrent posture prior to committing to a 
specific warhead band. This is currently being examined in the Nuclear 
Posture Review.
    Question. Do reductions below the level of 2,000-2,500 warheads 
require revisions to current nuclear deterrence guidance?
    Answer. The President has committed to ``achieving a credible 
deterrent with the lowest possible numbers of nuclear weapons 
consistent with our national security needs including our obligations 
to our allies.'' The congressionally mandated Nuclear Posture Review 
that the Secretary of Defense has undertaken is examining U.S. 
deterrence strategy to achieve the President's objective.
    Question. Do you support revisions to current nuclear deterrence 
guidance that would allow reductions below the level of 2,000-2,500 
warheads?
    Answer. I support the President's call for a reduction of nuclear 
forces to the lowest possible numbers of nuclear weapons consistent 
with our national security needs. I also support revisions to U.S. 
strategy which accurately reflect the challenges and opportunities of 
the new international strategic environment. Deterrence will continue 
to be the primary role of our nuclear forces particularly against 
potential adversaries that may consider the use, or threat of use, of 
nuclear weapons or other WMD. This question is a critical component of 
the ongoing Congressionally mandated Nuclear Posture Review; therefore, 
it is premature to comment while the review is still in progress.
    Question. Do you support dismantlement of retired nuclear warheads?
    Answer. Today the United States no longer has the ability to 
manufacture some key nuclear weapons components. We have placed in 
storage a number of weapons components from previously retired weapons 
that can be used to assemble weapons in times of emergency. We can only 
address dismantlement on a case-by-case basis until we restore our 
ability to manufacture new weapons.
    Question. In your view, what should be the minimum number of 
strategic nuclear warhead designs included in the inactive and active 
inventories of U.S. nuclear weapons?
    Answer. Currently, the United States retains the ability to design 
and assemble new warheads if the required components are available. 
While no minimum number of designs can be specified, a sufficient 
amount must be retained as a hedge against weapons failures and 
emergency weapons re-manufacturing requirements. The question is 
currently being examined in the ongoing Congressionally mandated 
Nuclear Posture Review.
    Question. Would you support a return to nuclear weapons testing in 
the absence of a significant stockpile related problem?
    Answer. Today, we can certify the safety and reliability of our 
nuclear weapons stockpile without testing. The Stockpile Stewardship 
Program continues to improve our understanding of complex weapons 
performance issues. Our future capability to certify our stockpile is 
uncertain. The requirement for testing is evaluated annually and 
reported to the President. However, we need to retain our ability to 
conduct nuclear testing in case of unforeseen technical issues.
    Question. Under what conditions would you support a resumption of 
nuclear weapons testing?
    Answer. Currently, there is no need for a resumption of underground 
nuclear weapons testing as science-based tools and an aggressive 
surveillance program have proven effective thus far in maintaining a 
safe and reliable stockpile. However, if unforeseen problems arise with 
weapons in our stockpile, we may need to recommend that nuclear testing 
be resumed to reestablish confidence in our nuclear arsenal.
    Question. If DOD eventually requires a new nuclear weapon design, 
will the existing science-based Stockpile Stewardship Program allow us 
to develop a new, safe, and reliable nuclear weapon without testing?
    Answer. I must defer to the experts at DOE for this answer.
    Question. Do you support development of new low yield nuclear 
weapons? If so, what requirement would such a weapon meet? Under what 
circumstances would you support using such a weapon? Does such a weapon 
have any deterrent value?
    Answer. This area is currently being examined in the Nuclear 
Posture Review. Moreover, we already have a number of low-yield weapons 
in the current stockpile. It would be premature to speculate on the 
need for a new weapon.
    Question. Do you support the development of a new weapon design in 
an effort to make sure our experienced weapon designers are maintaining 
their skills and transferring their expertise to the new generation of 
designers?
    Answer. We currently have no military requirements for a new weapon 
design, but we support DOE's efforts to sustain the skills and 
expertise as they see fit.
    Question. Do you believe that the Stockpile Stewardship Program can 
maintain the necessary skills to maintain the nuclear weapons 
stockpile?
    Answer. The skill sets in question reside in DOE. I must defer to 
their experts for the answer.
    Question. If a new design requirement were forthcoming, are you 
confident our weapon designers could develop the new weapon design, 
especially if they are not allowed to test such a weapon?
    Answer. I must again defer to the DOE experts for the answer. I 
would rely on their judgement.
    Question. Would your confidence remain the same if the new weapon 
design was primarily developed by designers who never had the 
opportunity to test a nuclear weapon?
    Answer. I understand NNSA is expending significant resources to 
ensure this new generation benefits from the experience of our current 
scientists and engineers before they retire. I would defer to NNSA on 
this issue.
    Question. As our experienced nuclear weapons designers continue to 
reach retirement age, are you concerned that without the development of 
a new weapon design, their skills, experience, and expertise may be 
lost forever?
    Answer. NNSA is aggressively pursuing programs to ensure that this 
will not happen, but I would defer to them on this issue.
    Question. Is there any requirement for any new nuclear weapon, and 
under what circumstances would you support development of a new nuclear 
weapon?
    Answer. No, there is currently no military requirement for a new 
nuclear weapon, but this issue is also being examined as part of the 
congressionally mandated Nuclear Posture Review.
                            nuclear testing
    Question. Former Secretary of Defense and Energy James Schlesinger 
stated that the United States will have to retain the option of testing 
nuclear devices on an as-needed basis. He further stated that 
limitations on testing have already changed the way weapons planners go 
about their business and that we have had to forego development of new 
nuclear systems, such as those designed to attack hardened or dispersed 
targets, to live within the bounds of the self-imposed testing 
moratorium.
    Do you agree with his assessment, and, if not, why not?
    Answer. Again, there is currently no military requirement for a new 
design nuclear weapon. As part of the Stockpile Stewardship Program, 
however, DOE has retained an ability to resume underground nuclear 
testing in 2 to 3 years if required.
                 cooperative threat reduction programs
    Question. Do you support the Cooperative Threat Reduction (CTR) 
Program?
    Answer. Yes. Cooperative Threat Reduction (CTR) helps the Former 
Soviet Union eliminate strategic offensive arms consistent with their 
treaty obligations; prevent the proliferation of weapons of mass 
destruction and associated delivery systems, materials and expertise; 
and pursue military reductions and reform. All of this serves to 
enhance U.S. security. Given their fiscal austerity, it is not at all 
clear that countries such as Russia, Ukraine, Kazkahstan and Uzbekistan 
would eliminate their strategic arms and be able to comply with their 
treaty obligations without the CTR program of assistance. Moreover, 
leaving those systems in place makes them vulnerable to theft or sale 
to other state or transnational groups.
    Question. In your view, does the CTR program support national 
security through its strategic forces dismantlement and other efforts 
and should it continue to be a DOD program?
    Answer. Yes. Cooperative Threat Reduction (CTR) does support 
national security. What's important is not where the program resides as 
long as we continue to execute it effectively and reap the benefits of 
fewer weapons of mass destruction.
                       ballistic missile defense
    Question. The Clinton administration established four criteria for 
determining whether to deploy ballistic missile defense systems to 
defend the United States against limited ballistic missile attacks:

        1) The threat should warrant deployment;
        2) The system should be cost-effective and affordable;
        3) The system should be operationally effective; and
        4) Deployment should make us more rather than less secure.

    Do you believe these criteria should continue to be used for 
considering whether to deploy missile defenses against limited long-
range missile attacks? Please indicate the reasons for your answer.
    Answer. Militarily, these criteria make sense for any weapons 
system under consideration. Missile defense is an essential component 
for deterring the emerging ballistic missile threat. It is part of a 
broader security approach that encompasses non-proliferation and 
counter-proliferation.
    Question. The Bush administration has proposed a large missile 
defense research and development program for fiscal year 2002, 
including efforts in boost-phase, midcourse and terminal defenses for 
land-based, sea-based, air-based and space-based systems.
    How do you believe we should determine the proper level of effort 
and resource allocation to ballistic missile defense relative to other 
defense needs?
    Answer. We balance program needs through the Department's 
programming and budget review process. The Department initiated several 
major reviews at the outset of the new administration and the defense 
strategy review is still in progress. Any major defense program changes 
will await the outcome of that review.
    Question. Today, our forward deployed military forces face current 
and growing threats from short-range and medium-range theater ballistic 
missiles.
    How high a priority do you believe that fielding operationally 
effective theater missile defense systems should be for our military?
    Answer. The President has stated we will deploy defenses capable of 
defending the U.S., our allies, and friends. The Department has already 
signaled its intention to stop differentiating between ``national'' and 
``theater'' missile defense systems. We are pursuing a layered 
defensive system, capable of intercepting missiles of any range at 
every stage of flight--boost, mid-course, and terminal. Since the Gulf 
War and the casualties we suffered due to a missile attack, protecting 
our troops against such a missile attack is a top priority.
             multiple independent re-entry vehicles (mirv)
    Question. Certain Russian officials have indicated that if the U.S. 
withdraws from the ABM Treaty, Russia may not de-MIRV its land-based 
ICBMs as required by treaty and may re-MIRV or newly MIRV other land-
based systems.
    Answer. The START II Treaty is not in force. It is the only treaty 
requiring elimination of MIRVed ICBMs. The START I Treaty is in force 
and allows for retention of MIRVed ICBMs by both Russia and the U.S.
    Question. Do you believe that it is in the U.S. national security 
interest that all land-based ICBMs be de-MIRVed?
    Answer. There are no significant military advantages to the 
elimination of MIRVed land-based ICBMs. From the U.S. perspective, the 
recent budget submission reflects future retirement of all U.S. 
Peacekeeper MIRVed ICBMs, and the U.S. is downloading one of three 
wings of MIRVed Minuteman III ICBMs to a single reentry vehicle. These 
actions reflect the military conclusion that these MIRVed systems are 
no longer required for national security.
    Question. Do you believe that it is in the U.S. national security 
interest to deploy a ballistic missile defense system to defend the 
United States against limited ballistic missile attack and to defend 
U.S. troops deployed abroad and U.S. allies from such attack?
    Answer. Yes. We should take all measures possible to defend U.S. 
and allied interests.
                     military-to-military contacts
    Question. This committee has been a strong supporter of military-
to-military contacts and comparable activities that are designed to 
encourage a democratic orientation of the defense establishments and 
military forces of other countries.
    What is your view of the value of military-to-military contacts?
    Answer. They are absolutely essential to the execution of our 
National Military Strategy. They are fundamental to our ability to 
enhance the national security of the United States, and our 
interoperability with allies in securing theirs. Military-to-military 
contacts range from senior officer visits, counterpart visits, ship 
port visits, bilateral and multilateral staff talks, personnel exchange 
programs, unit exchange programs, formal military contacts programs, 
and State Partnership for Peace activities. They are essential for 
enhancing the U.S. military's ability to operate with coalition and 
partner nations through interactions with foreign military personnel, 
equipment, and culture. The experiences and relationships developed by 
military-to-military contact significantly enhance the operational 
flexibility and cohesiveness of future coalition operations at the 
tactical, operational and strategic levels. The trust, goodwill, and 
influence our military gains with those of other nations are 
invaluable. By promoting democratic ideals among militaries worldwide 
provides, we also enhance regional security, ensure U.S. access, and 
increase coalition interoperability.
                       national military strategy
    Question. The last National Military Strategy document was issued 
in September 1997, shortly after the completion of the last Quadrennial 
Defense Review (QDR).
    Although there is no statutory requirement for such a document, if 
confirmed, would you prepare and issue a National Military Strategy in 
the aftermath of the completion of the 2001 QDR?
    Answer. The National Military Strategy (NMS) and Joint Vision are 
key documents used by the Chairman of the Joint Chiefs of Staff to 
fulfill his Title 10 responsibility of assisting the President and 
Secretary of Defense in providing for the strategic direction of the 
Armed Forces. If confirmed, I intend to issue a new NMS. It will be 
developed in consultation with the Joint Chiefs of Staff and combatant 
commanders, and convey my advice in implementing the Secretary of 
Defense's Quadrennial Defense Review, and any additional guidance 
contained in the President's National Security Strategy.
                                colombia
    Question. U.S. military personnel have been involved in the 
training and equipping of Colombian military forces involved in 
counter-drug operations. U.S. military personnel, however, do not 
participate in or accompany Colombian counter-drug or counter-
insurgency forces on field operations in Colombia.
    Do you favor continuation of this limited role for U.S. military 
personnel in Colombia?
    Answer. Yes, in accordance with current law and Secretary of 
Defense directives. Any proposed increase in role or scope of military 
actions in Colombia is a matter of policy.
                       quadrennial defense review
    Question. Section 118(e) of title 10, United States Code, provides 
for the Chairman of the Joint Chiefs of Staff to prepare and submit to 
the Secretary of Defense the Chairman's assessment of the QDR, 
including the Chairman's assessment of risk. The Secretary, in turn, is 
required to submit the Chairman's assessment, with the Secretary's 
comments, in the report in its entirety, when the report is submitted 
to the Committees on Armed Services of the Senate and House of 
Representatives. If the QDR is not complete by the end of the current 
Chairman's term, the preparation and submission of the Chairman's 
assessment of the QDR, including the Chairman's assessment of risk, 
will be the responsibility of the next Chairman of the Joint Chiefs of 
Staff.
    If confirmed, are you committed to making a comprehensive and 
straightforward assessment of the report, including an assessment of 
risk, even if that assessment differs from the view of the Secretary of 
Defense?
    Answer. Yes.
                               priorities
    Question. General Shelton has established asymmetrical warfare, 
joint readiness, information operations and force protection as 
priorities and readiness, modernization and core compensation elements 
as enduring priorities.
    If confirmed, what would be your priorities?
    Answer. I agree with General Shelton. I think they're all enduring 
priorities, and will continue to demand our attention for quite some 
time. If confirmed, my initial priorities will be closely related to 
them. First, joint warfighting is fundamental. The Armed Forces must 
continue to enhance our joint warfighting capabilities. Second we must 
find the proper balance between, and find resources for modernization 
and transformation. Third, we need to continue our efforts to make the 
JROC more strategically focused. Fourth, we should better define the 
military's role in homeland security. Fifth, we must find ways to 
enhance Joint Forces Command's role in experimentation and 
transformation. Sustaining our quality force and taking care of our 
people first are, of course, the ultimate means of accomplishing all of 
this.
                            lessons learned
    Question. What are the most important lessons that you have learned 
as Commander in Chief, U.S. Space Command and Vice Chairman of the 
Joint Chiefs of Staff?
    Answer. Those experiences were invaluable. The lessons I took from 
them only confirmed what I have learned throughout the 36 years of my 
uniformed service to the nation.
    First, the armed forces aren't made up of people, rather that the 
people are the armed forces. Sometimes we lose that focus. The issue 
isn't the Services or the gadgets they bring to the fight, but rather 
that the people who, regardless of the tools they use or the uniform 
they wear, are the key to achieving our national security objectives. 
They're the real source of our Armed Forces power.
    Second, all efforts of those in our Armed Forces must be geared 
toward one thing--warfighting. Every effort made, from the smallest 
field detachment to the loftiest offices in the Pentagon should be 
focused on that one idea.
    Third, there must be unity of effort with DOD as we work through 
our modernization and transformation activities.
    Finally, Service competition can often be a good thing as 
competition breeds excellence. But in the end, all efforts must be 
focused on the contribution to the joint fight.
                  joint requirements oversight council
    Question. During your tenure as the Chairman of the Joint 
Requirements Oversight Council (JROC), there has been a shift in the 
JROC's focus to a more strategic level and an initiative to better 
integrate Joint Forces Command's joint experimentation efforts into the 
JROC and other DOD decision-making processes.
    Would you describe the reasoning behind and the impact of these 
changes?
    Answer. In April 2000, I appeared before the Emerging Threats and 
Capabilities Subcommittee to discuss the Joint Requirements Oversight 
Council (JROC) and its evolving role in supporting our Armed Forces. My 
concern was centered on improving the JROC's ability to provide the 
strategic guidance necessary to advance future joint warfighting. The 
JROC needed to provide the up-front guidance necessary for requirements 
integration and joint interoperability.
    A critical key to achieving joint interoperability rests in 
establishing a framework from which to assess increasingly complex 
systems. This framework consists of joint operational concepts and 
joint operational architectures that drive development of materiel and 
non-materiel solutions. We view this as a crucial component of DOD-wide 
transformation. Operational architectures are the key to system 
interoperability because they establish the interoperability 
requirements that give us the ability to make the necessary system and 
technical architecture decisions.
    The impact of these changes has been significant. It is my view 
that the JROC has been working to establish a process that supports 
institutional transformation. First, the JROC is leading the ongoing 
development of joint operational concepts and architectures, which it 
will use to provide discrete standards that ensure systems are ``born'' 
joint interoperable. Second, the JROC is now integrating joint 
doctrine, organizations, training, leadership, personnel and facilities 
(DOTLPF), with the materiel (system) solutions. Third, the JROC is 
continuing to work very closely with Joint Forces Command (JFCOM) to 
integrate its experimentation efforts in support of operational concept 
and architecture development.
    Finally, I would like to comment on three specific initiatives the 
JROC is working. First is our standup of the Joint Interoperability and 
Integration (JI&I) organization at JFCOM. This organization's function 
is to act as the transformation engine for joint interoperability 
requirements of future and legacy systems and provide operationally 
prioritized recommendations regarding joint doctrine, organization, 
training, material, leadership, personnel and facilities. Second, is 
our Single Integrated Air Picture (SIAP) System Engineer effort, which 
is focused on recommending system level fixes to the JROC for existing 
Joint Distributive Network deficiencies with the goal of delivering 
fused, near-real-time and real-time data from multiple sensors to 
produce a common, continuous and unambiguous air picture. Third, our 
commitment to develop a Family of Interoperable Operational Pictures 
(FIOP) will provide an all-source picture of the battle space 
containing actionable, decision-quality information to the warfighter 
through a fusion of existing databases. I would solicit your continued 
support for all of these important initiatives.
    Question. If confirmed, would you intend to make any other changes 
in the JROC's role or process?
    Answer. I am confident we're on the right track. We need to 
continue our current efforts to develop operational concepts and 
architectures that will drive future system development. In fact, I am 
looking at ways to accelerate these efforts. I am also committed to 
continuing our work with Joint Forces Command to fully integrate its 
joint experimentation efforts. It's going to take us some time to work 
our way through the development of these joint operational concepts and 
architectures that will form the basis of future JROC guidance and 
requirement integration.
                         excess infrastructure
    Question. How high a priority would you place on the closure of 
excess Department of Defense installations and why?
    Answer. I share the Secretary's view. According to the April 1998 
DOD BRAC report, we currently have 23 percent excess infrastructure 
capacity, a situation that directly impacts the ability of the Service 
Chiefs to provide, train, maintain, and equip today's force. By 
removing excess capacity, we could save significant resources in the 
long-term--money needed to fix infrastructure in remaining bases. We 
also need a sustained period of increased funding for infrastructure to 
develop and properly maintain what's needed to support the next 
generation of weapon systems. The Services should be relieved of the 
burden of maintaining sites with limited military use.
                              encroachment
    Question. On November 27, 2000, the Senior Readiness Oversight 
Council identified several ``encroachment'' problems confronting the 
Department of Defense including protection of endangered species, 
unexploded ordnance and other constituents, commercial demand for 
bandwidth and frequency, sustainability of the maritime environment, 
demand for use of airspace, protection of air quality, abatement of 
airborne noise, and growth of urban areas. At a March 20, 2001, hearing 
before the Readiness and Management Support Subcommittee, 
representatives of the military services expressed concern that this 
encroachment was hindering their Title 10 responsibility to train the 
forces.
    If confirmed, what actions would you take to address these 
problems?
    Based on the testimony provided by the services at the Readiness 
Subcommittee hearing on March 20, 2001, it appears that the time is 
ripe for the development and implementation of a comprehensive strategy 
that addresses both the individual and the cumulative effects of 
environmental encroachment issues.
    If confirmed, how would you propose to facilitate the development 
and implementation of a comprehensive strategy intended to address 
readiness concerns related to these encroachment issues?
    Answer. Training is critical to the readiness of combat forces and 
encroachment is a serious issue with national security implications. 
The training of the Armed Forces is a Service responsibility, and the 
Services are working hard not only to maintain their training 
facilities, but to improve their stewardship of the environment, while 
strengthening their relationships with local communities.
    There is a collaborative Departmental effort to address 
encroachment issues. We have draft action plans for the various aspects 
of encroachment. We are working a community outreach program to 
minimize the impact of encroachment by fostering a dialogue with local 
leadership, discussing work-around initiatives, and developing 
potential technology solutions to provide a similar level of training.
    This is a solid and prudent approach for resolving the encroachment 
issues. If confirmed, I'll continue to support these efforts.
                       readiness reporting system
    Question. The systems that the military services use to measure 
their readiness have been criticized as outdated and inappropriate for 
a military of the 21st century. Some of the specific criticisms raised 
have been that they measure past readiness rather than future 
readiness, and they measure the readiness of the forces to perform a 
major theater war mission rather than the mission to which they are 
currently assigned.
    Do you agree with these criticisms and, if confirmed, what actions 
would you take to change the systems?
    Answer. As Vice Chairman I have been involved in the readiness of 
the force, the assessment process, and in identifying solutions to our 
shortfalls. The Joint Staff hosts annual CINC/Service conferences on 
readiness, and based on the CINC/Service's feedback, I believe our 
focus on joint warfighting is the proper emphasis, and is also in 
accordance with Title 10, U. S. Code, Section 117. Units are designed-
manned, armed, equipped, and trained-to conduct wartime missions. But I 
also recognize the necessity to assess our readiness for missions other 
than war. Less than 2 years ago we created a reporting mechanism within 
the Global Status of Resources and Training System to do this. While 
this was a good first effort, expansion and/or refinement of this 
reporting mechanism needs to be explored. As set forth in the DPG, the 
Services and Chairman must recommend to the Secretary of Defense a 
comprehensive readiness reporting system. If confirmed I will continue 
to further enhance the timeliness, accuracy, and usefulness of the 
readiness reporting system.
                 cinc-identified readiness deficiencies
    Question. Over the last several years the Quarterly Readiness 
Reports that the Department prepares for Congress have outlined a 
number of CINC-identified readiness related deficiencies. Many of these 
are listed as Category I deficiencies which entail significant 
warfighting risk to execution of the National Military Strategy. 
Although these deficiencies have been reported for the past several 
years, they have not as yet been effectively addressed. This has raised 
concerns that the requirements of the warfighting CINCs are not being 
incorporated into the military services budgets and the Department's 
acquisition process.
    If confirmed, what actions will you take to ensure that these 
requirements are understood and funded within the Department's budget?
    Answer. If confirmed, I will continue to report the combatant 
commanders' identified readiness deficiencies. I will also make 
assessments and recommendations to the Secretary of Defense regarding 
the effectiveness of the Services' budgets and the acquisition process 
to solve these deficiencies.
       commercial vs military requirements for frequency spectrum
    Question. The Federal Government is trying to identify a band of 
frequencies that can be used for the operation of 3rd Generation 
Wireless Communications devices. As a part of this overall effort, the 
Department of Defense conducted a study to determine the cost and 
operational impact that would result if the military services were to 
surrender the use of the 1755--1850 MHZ band of frequencies upon which 
they currently operate their equipment. That study found that it would 
take at least $4.3 billion and 17 years to vacate the band if a 
suitable band of alternative frequencies were identified for the 
Department's use. The Secretary of Defense and General Shelton recently 
signed a letter to Members of Congress that outlined the importance of 
spectrum availability, and this band in particular, for the 
Department's operations.
    What is your view of this assessment?
    Answer. I fully support the position of the Secretary of Defense 
and General Shelton. Spectrum access is vital to combat operations and 
training. Guaranteed access to spectrum is a cornerstone of information 
superiority and our warfighting abilities. Without this access, the 
ability of the Department to use current and planned weapon systems, 
employ new technologies, and effectively command and control 
conventional and nuclear forces is seriously compromised. The 1755-1850 
MHz frequency band supports over a $100 billion investment in key 
satellite, air combat training, precision weapons guidance and 
battlefield communications systems. These systems provide commanders 
and their forces real-time intelligence, voice, data, and video 
information and precision strike ability necessary for a leaner, more 
agile and more flexible force to meet global mission requirements. 
Competition for spectrum, nationally and internationally, is increasing 
and the Department's growth and need for spectrum parallels commercial 
industry's needs. We must ensure any spectrum decision carefully 
considers national security, the needs of commercial interests, and 
other important national interests.
    I agree with the conclusions of the Department's report on the 
1755-1850 MHz band. We simply cannot afford to lose the capabilities 
the systems in this band provide the warfighters. The report concluded 
we cannot share the band with 3rd generation systems and vacating the 
band cannot occur prior to 2017 without potentially compromising 
critical capabilities and support. Also, spectrum that is comparable in 
terms of technical characteristics and regulatory protections in which 
to relocate our systems must be identified, DOD must receive full and 
timely reimbursement of any relocation costs, and we require adequate 
time to transition to new spectrum. We are working with the White 
House, Department of Commerce, and the Federal Communications 
Commission to explore different scenarios for 3rd generation systems.
    We are fully committed to cooperating with Congress and the Federal 
Communications Commission and within the administration in finding 
solutions for 3rd generation implementation that meets commercial needs 
while protecting essential national security capabilities.
                          combating terrorism
    Question. Chairman Shelton recently recommended to the Secretary of 
Defense that the Antiterrorism/Force Protection functions of the Joint 
Staff be transferred to the Assistant Secretary of Defense for Special 
Operations and Low-Intensity conflict.
    What are your views on this recommendation?
    Answer. I agree with General Shelton's recommendation and rationale 
to transfer the Antiterrorism/Force Protection (AT/FP) functions of the 
Joint Staff to the Assistant Secretary of Defense for Special 
Operations/Low Intensity Conflict (ASD(SO/LIC)).
    ASD(SO/LIC) and J-34 perform many overlapping functions. Therefore, 
to eliminate redundancies, it is appropriate to consolidate AT/FP 
functions under ASD(SO/LIC) and return the J-34 military billets to the 
Services and return the two civilian billets to the Washington 
Headquarters Service.
                                 africa
    Question. The Defense Department is currently involved in a number 
of initiatives in Africa to help certain nations be better prepared to 
provide their own regional peacekeeping forces and humanitarian 
missions.
    In your view, is it in our national security interest to continue 
such programs as the African Crisis Response Initiative, which are 
aimed at helping African nations to be better prepared to respond to a 
regional crisis?
    Answer. The U.S. has a number of important interests in Sub-Saharan 
Africa to include:

        <bullet> Deterrence/response to transnational threats 
        (terrorism, weapons proliferation, organized crime, narcotics 
        trafficking, and diseases (HIV))
        <bullet> Secure strategic lines of communication
        <bullet> Prevention/response to humanitarian crisis
        <bullet> Conflict resolution
        <bullet> Access to bases/facilities for U.S. operations
        <bullet> Support for U.S. allies
        <bullet> Protection of U.S. citizens.

    In the previous decade the majority of our material resources have 
been utilized to support our allies, both European and African in 
responding to conflicts and humanitarian crises. U.S. personnel have 
seen service all over the continent in the conduct of Non-Combatant 
Evacuations (NEO) and humanitarian relief operations. Current 
initiatives, including ACRI are designed to not only enable African 
nations and institutions to address these issues on their own but also 
to prevent such occurrences. ACRI has provided a base of knowledge on 
peacekeeping, humanitarian crisis response, multi-national military 
operations and protection of human rights. Specifically, ACRI and our 
other engagement efforts, such as African Center for Strategic Studies 
(ACSS) and IMET seek to encourage shaping of African militaries to:

        <bullet> Develop the proper size, budget, and capability for 
        legitimate security requirements
        <bullet> Support initiatives to encourage regional approaches 
        to African problems
        <bullet> Support structuring of militaries to emphasize 
        defensive capabilities, peacekeeping and humanitarian response
        <bullet> Support efforts to foster a regional conflict 
        prevention and resolution capability
        <bullet> Support democratic principles and respect the rules of 
        law and promotion of human rights.
                          command and control
    Question. Despite significant investment in military service, 
national and combatant commander command and control systems, more than 
one of the recently convened defense review panels concluded that U.S. 
forces do not have a deployable, joint command and control system that 
can immediately be placed into operation to coordinate the efforts of 
U.S. and coalition forces.
    If confirmed, what actions would you take to ensure the rapid 
development of such an important capability?
    Answer. This is an absolutely critical capability and we do have 
deficiencies in addressing the full command and control 
interoperability required by a Joint Task Force (JTF) headquarters. The 
current DPG calls for plans to establish standing JTF headquarters and 
recommends improvements to operating procedures and capabilities, to 
include addressing rapidly deployable interoperable command and 
control. This will be a major part of the experimentation in JFCOM's 
Millennium Challenge 2002 exercise. Additionally, Joint Forces Command 
will take the lead to identify and fix current mission critical JTF C2 
legacy interoperability issues. Further, I fully support the 
criticality of development and fielding of rapidly deployable, 
interoperable, command and control systems. If confirmed, I will ensure 
the Vice Chairman, in his delegated role as Chairman of the Joint 
Requirements Oversight Council along with the Service Vice Chiefs, 
provide the necessary senior military perspective to achieve an 
interoperable joint command and control capability.
                         information operations
    Question. Joint Vision 2020 and various defense reviews have 
highlighted the importance of information operations in future warfare.
    What role and what obstacles do you see for information operations 
as an integral part of U.S. joint military operations?
    Answer. Information operations are a means to ensuring decision 
superiority--the key to successful military operations in the future. 
But we're faced with three challenges: planning and executing these 
activities the same way we would any wartime campaign; integrating the 
military's efforts with those of other U.S. Government agencies; 
identifying and removing unintended effects while keeping up with 
rapidly changing information technologies. We can meet these 
challenges.
    Question. Are you satisfied that there is unity of effort within 
the Department of Defense in the development of information operations 
capabilities?
    Answer. Emerging computer network attack and defense capabilities 
represent an important aspect of information operations. We have been 
working hard to enhance the security of DOD computer networks and to 
defend those networks from unauthorized activity (e.g., exploitation of 
data or attack). Recognizing that the threat to our networked systems 
is real and increasing, we established the Joint Task Force--Computer 
Network Defense in December 1998, and assigned responsibility for that 
mission to U.S. Space Command in 1999. We have incorporated intrusion 
detection software in many of our networks, erected firewalls, and 
increased awareness training for our personnel through our information 
assurance program.
    In October 2000, we designated the Commander in Chief, U.S. Space 
Command, as the military lead for computer network attack as well, and 
charged U.S. Space Command with overseeing the development of 
capabilities and procedures for this aspect of offensive information 
operations. In April 2001, U.S. Space Command redesignated the Joint 
Task Force--Computer Network Defense as the Joint Task Force--Computer 
Network Operations to reflect this new mission. The Services also 
cooperate with other Defense and Intelligence Community agencies in 
efforts to defend the networks that are vital to our national security.
    As you have indicated, the Services, Defense Agencies, and 
combatant commanders are all devoting a great deal of effort to this 
area. I believe we have the structures and procedures in place to keep 
duplication of effort to a minimum and ensure the broadest diffusion of 
advances in information operations capabilities across the Department.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Chairman of the Joint Chiefs of Staff?
    Answer. If I am confirmed, my first priority will be to ensure our 
soldiers, sailors, airmen, marines, and coastguardsmen are ready to 
meet the near-term challenges of executing the tasks that support our 
defense strategy. We have to make sure they are organized, trained, 
equipped, and supported with the tools required to protect our nation's 
security interests--at home and abroad. Second, we must have the proper 
force structure to exercise our military strategy. Third, we must make 
the investment to modernize, recapitalize, and transform our forces to 
meet the challenges of the 21st century. Finally, we must adopt 
knowledge and decision based warfare to enable us to win in the joint 
battlespace of the future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I'll work with the Secretary of Defense, 
Combatant Commanders, and Service Chiefs to ensure we focus on 
readiness issues for the near-term challenges while implementing 
programs in concert with the Secretary's Defense Planning Guidance to 
transform and modernize the force.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chairman of the Joint Chiefs of 
Staff?
    Answer. The most important function of the Chairman is to provide 
military advice to the President, the National Security Council, and 
the Secretary of Defense. Currently there are no major problems in 
performing this function. But, recent exercises demonstrate the need to 
enhance the Chairman's ability to communicate with military 
organizations around the globe on a real time basis.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, my first priority would be to better equip 
our staffs to enable swift, accurate information flow. Our information 
and decision capabilities are critical to providing accurate and timely 
advice to the NCA. We must ensure that these systems are state of the 
art and interoperable. We must further ensure that our transformation 
efforts enhance joint command and control throughout DOD. Initiatives 
such as the Standing Joint Task Force Headquarters will ensure these 
efforts provide timely and accurate information in warfighting 
headquarters as well as other higher headquarters.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                           aircraft carriers
    1. Senator Bill Nelson. What, in your view, is the operational risk 
of having all but one of the Navy's east coast aircraft carriers 
stationed at Naval Station Norfolk?
    General Myers. With five of the six east coast carriers stationed 
in Norfolk, operational risks are increased somewhat by the number of 
carriers in port at any given time. This number averages between two 
and three, with one in shipyard maintenance and one or two pier-side. 
These operational risks are mitigated by a robust force protection plan 
(on both the ship and Naval Station), training, and situational 
awareness. The disadvantages are also balanced by the ability to 
consolidate protection forces in one place.
    Although the channel leading from sea to the Naval Station is deep 
enough to accommodate the carriers, it is also narrow. Any restriction 
of the channel could affect the movement of carriers out of the harbor. 
This risk is mitigated as well by a robust force protection plan, which 
includes the Coast Guard and local and state law enforcement.


    2. Senator Bill Nelson. What, in your view, is the operational 
value of having an aircraft carrier stationed at Naval Station Mayport, 
Florida? What, in your view, would be the operational risk if we do not 
have an aircraft carrier stationed at Naval Station Mayport?
    General Myers. Maintaining a carrier homeported in Mayport provides 
operational flexibility for the Navy by keeping that facility active 
and fully operational as an alternative east coast facility. As Mayport 
Naval Station can service two carriers simultaneously, it provides an 
operational value to the Navy. There is no specific risk associated 
with not having a carrier based at the Mayport Naval Station other than 
the reduced flexibility should the Norfolk facility become untenable. 
                                 ______
                                 
               Questions Submitted by Senator John McCain
             aircraft carrier and amphibious battle groups
    3. Senator McCain. Later this month, the Pentagon will forward the 
Quadrennial Defense Review (QDR) to Congress. There have been some 
disturbing press reports regarding cuts in our military's power 
projection capability, including cuts in the number of aircraft 
carriers battle groups and amphibious readiness groups. Based on recent 
events, the history of aircraft carrier battle groups and amphibious 
battle groups have been called upon in times of crises by JCS over 80 
times in the past 25 years, and the self-sustaining nature and 
flexibility of the CVBG, do you believe that we can afford to further 
reduce the number of aircraft carrier and amphibious battle groups? 
Would you please elaborate on your answer?
    General Myers. The short answer is the Quadrennial Defense Review 
(QDR) did not recommend further reductions in the number of aircraft 
carrier battle groups (CVBGs), amphibious ready groups (ARGs), or the 
wide range of aircraft they support. As recent events make all too 
clear, the availability of CVBG strike and fighter aircraft has been 
and will continue to be an essential element in the maintenance of 
global security and stability.

                          b-1 force structure
    4. Senator McCain. General Myers, you seem qualified to answer my 
next questions based on your background-especially your distinguished 
military record of over 600 hours of combat flying in the F-4 Phantom 
in Vietnam.
    Do you support the force structure cuts of 33 B-1B Lancer bomber 
aircraft announced earlier this year by the Secretary of the Air Force 
and the Secretary of Defense? Please explain.
    General Myers. I support the Department's decisions on current 
Force Structure levels. The fiscal year 2002 DOD budget reflects the 
Departments commitment to sound stewardship by reshaping and 
modernizing the B-1 Lancer fleet. The consolidation of the B-1 force--
from 93 to 60 aircraft, to be based at two major facilities--is part of 
an overall approach to maximize the strategic and operational 
effectiveness of America's long-range strike aircraft fleet for the 
21st century. The savings that will result from this plan--estimated at 
upwards of $1.5 billion over the next 5 years--will be reinvested 
directly to enhance the lethality, survivability, readiness, and 
sustainability of the B-1 force.

    5. Senator McCain. Is the delay in the B-1B force restructuring 
worth the $100 to $165 million that it will cost the taxpayer and would 
you describe higher priority programs where this critical funding could 
be better used based on what you understand from the Services' ``Fiscal 
Year 2002 Unfunded Priority Lists?''
    General Myers. Until we complete the Fiscal Year 2003 Budget Review 
later this fall, I will be unable to confirm whether $100-165 million 
is the right cost to the taxpayer. Based on an earlier assessment we 
realized the current B-1 force structure was neither cost-effective nor 
efficiently deployed for future combat operations. By reshaping the 
size and posture of the B-1 fleet, the Department could save hundreds 
of millions of dollars annually that could be invested in overdue 
defensive systems upgrades and weapons modernization efforts to make 
the remaining fleet ``whole.'' At the same time, by basing the 
remaining B-1's at two large, active duty Air Force bases, the new 
Lancer fleet would be more capable, efficient and affordable. Under 
this consolidation plan, no bases will close, and the new arrangement 
will free up hundreds of airmen who can be employed in critical and 
emerging missions, ranging from current mobility and surveillance 
systems to next generation strike and unmanned vehicles.

    6. Senator McCain. Do you find it necessary, as this committee has 
done, to prohibit the cuts in the B-1B bomber force before the 
following reports have been submitted to Congress: the National 
Security Strategy Review, the Quadrennial Defense Review, the Nuclear 
Posture Review, Secretary of Defense Report on the B-1B Bomber, Bomber 
Force Structure Report, and Comptroller General Report on the B-1B 
Bomber.
    General Myers. There will be a window of opportunity to readdress 
bomber force structure in the coming months. While the Air Force has 
announced plans to reduce B-1B from 93-60 Aircraft, the future bomber 
force structure is not final pending results of the fiscal year 2003-
2007 Program and Budget Review currently in progress. These reviews 
will allow the Secretary of Defense to evaluate how the Air Force 
intends to integrate guidelines established by Quadrennial Defense 
Review, Nuclear Posture Review, and relevant bomber studies. A final 
decision on B-1 force structure will be reflected in the fiscal year 
2003 President's Budget Submission in February 2002.

    7. Senator McCain. As you understand Defense Secretary Rumsfeld's 
proposal called the ``Freedom to Manage Act,'' does the Senate Armed 
Services Committees' prohibition with respect to the B-1B appear to be 
in conflict with the Secretary's legislative proposal--as you 
understand it? Please explain your answer.
    General Myers. Until the legislative proposal is finalized, I am 
not in a position to comment on it.

                                  iraq
    8. Senator McCain. Given the clear and present danger of both 
terrorism and weapons of mass destruction--and Iraq's aggressive 
development of such weapons, as extensively documented by Gary 
Milhollin and other proliferation experts--would you agree that we need 
to undertake a more assertive policy against Saddam Hussein that relies 
not on simply patrolling Iraq's skies, but that instead seeks to 
liberate Iraqi territory and undercut his rule?
    General Myers. There is clear and indisputable evidence that Saddam 
Hussein has demonstrated the will to use WMD as a terror weapon. He has 
employed chemical weapons against his people and his neighbors. Absent 
on-site inspections of suspected Iraqi WMD facilities, we must monitor 
Iraq's actions related to its WMD capability from a distance. We should 
do everything possible to keep WMD from falling into the hands of 
terrorists and we can not rule out the possibility that Saddam would 
provide WMD to terrorist organizations that are hostile to the United 
States.

                            homeland defense
    9. Senator McCain. Homeland defense now takes on immediate urgency 
in the wake of Tuesday's horrors, although its details remain 
controversial. Do you support the creation of a Department of Homeland 
Defense, as called for by the Hart-Rudman Commission on U.S. National 
Security in the 21st century? What other steps do you envision 
implementing to improve our defenses here at home?
    General Myers. I fully support the President's creation of an 
Office of Homeland Security and the Homeland Security Council and 
believe that this initiative should meet the overall goals of the Hart-
Rudman Commission's report. In regard to what other steps are required 
to improve our defenses here at home, the SECDEF and I are reviewing 
the current unified command structures. To ensure that the DOD is 
properly organized we should structure ourselves to take on the 
challenges outlined in the QDR to meet not only the risks to our home 
but also maintain the global campaign against terrorism. Additionally, 
the U.S. Armed Forces will continue to provide military support to 
civil authorities wherever military capabilities are required by the 
President or Secretary of Defense, or in the case of the National 
Guard, State Governors.

    10. Senator McCain. Are you satisfied that the expressions of 
political and diplomatic support we have received from friends and 
allies across the globe will be matched by their provision of any 
military support necessary to conduct retaliatory actions in staging 
areas for U.S. forces and/or joint military operations?
    General Myers. One of the most gratifying parts of this campaign is 
the support we have received from our friends and allies around the 
world. Support for this effort has come in many different forms and 
includes elements from all the instruments of national and 
international power. Our friends and allies are contributing in 
different ways according to their own capabilities, geographical 
location, and interests. Examples range from political leverage to 
economic measures to information sharing to military forces for support 
or combat operations. A broad range of military support has already 
been offered and accepted in this multinational and multifaceted 
effort. The U.S. has received overflight authorizations for aircraft, 
landing rights, basing and logistical support, intelligence sharing, 
military equipment and air, land, and sea forces. More specifically, 45 
countries have offered military forces and capabilities including 
combat and support forces. These contributions provide the capability 
to conduct and support joint and combined missions such as surveillance 
and reconnaissance, combat search and rescue, special operations, and 
direct offensive actions.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                              space plane
    11. Senator Smith. Last week, I received notice from General Ryan 
that the Air Force was terminating its work on a military space plane/
reusable launch vehicle with NASA's X-33 and X-37. With Al Smith bowing 
out as AF Undersecretary--whom I know from his days at Sanders/Lockheed 
in New Hampshire--I'm concerned there may be a vacuum in Air Force 
thinking about space at the highest levels. Some people believe we 
won't be able to test and demonstrate any capability in Bush's first 
term. I've heard you support a military space plane. Do you agree that 
a space plane could address our long-range bomber needs? How does the 
Air Force plan to support reusable launch capability?
    General Myers. We believe reusable launch vehicles (RLVs) will play 
a key role in our Nation's ability to leverage the space medium. The 
Air Force is presently working with NASA to develop a roadmap that will 
identify the way ahead for RLVs. This roadmap, which includes a 
military space plane concept, will better define DOD and NASA 
requirements, build on previous NASA efforts (including the X-33 and X-
37), and harness current technology initiatives.
    From an Air Force perspective, the Air Force/NASA team is exploring 
the potential military utility of space planes as future long-range 
bombers, as well as for precision strike and maneuver against hardened 
targets, deployment of responsive satellite sensors, and the refuel and 
repair of on-orbit systems. We will have a better understanding of the 
art of the possible when the roadmap is complete in the spring of 2002.

                         air force war planning
    12. Senator Smith. There has been criticism of Air Force war 
planning as drifting towards the improbable. Specifically, that the 
U.S. has been steadily losing access to foreign bases, and buying 
short-range fighters, while its long-range bombers are shrinking in 
number. Second, that although Air Force war planning contends that 
enemy defenses will be quickly destroyed, the Air Force retired 
electronic-warfare planes capable of hiding non-stealthy planes from 
enemy radar. How do you respond to this criticism?
    General Myers. Although we have closed some overseas bases for 
budgetary reasons as we drew down the force over the last 10 years, we 
continue to have access to foreign airfields when we need them. 
Regarding the fighter/bomber mix, as well as the retirement of the Air 
Forces EF-111s, these decisions are two good examples of how we must 
balance our capabilities as we modernize our force. It is crucial that 
we balance range, lethality, responsiveness, cost, survivability, and a 
number of other factors, within budgetary constraints and global 
realities, to meet our Defense Strategy. I am confident the Air Force 
will continue to work toward the best possible force structure mix to 
meet our Nations needs.
    Retiring the EF-111 allowed us to consolidate our electronic 
warfare capability into one platform, the Navy and Marine Corps EA-6B. 
The savings from deactivation of the F-111 and its support structure 
could then be used to meet ocher high priority requirements. To ensure 
that our electronic warfare requirements will continue to be met, the 
EA-6B will be receiving further capability enhancements, including an 
improved avionics package. An additional EA-6B squadron is slated to 
become operational in fiscal year 2003, bringing the total number of 
Navy and Marine Corps EA-6B squadrons to 20. Five of the Navy squadrons 
will be earmarked for land-based expeditionary deployments. Given the 
planned retirement of the EA-6B force beginning in 2010-2015, the 
Department has initiated a joint effort to determine the capabilities 
that should be developed for a successor system or systems.
    All force structure decisions are critically reviewed during the 
Quadrennial Defense Review and each year during the budget review cycle 
and development of the Defense Planning Guidance. Constructive 
criticism is welcomed as a healthy input to these reviews. We will, of 
course, continue to review current plans in light of the events on 11 
September 2001.

                                 space
    13. Senator Smith. Today we cannot afford to build enough ships to 
sustain our Navy, enough tankers and long-range bombers to give us the 
dominant global force we need without relying on overseas bases; and 
enough lift capability to get our current heavy ground forces quickly 
into theater. We must consider the possibility that spacepower systems 
can meet some of our future needs in a cost-effective way. We need 
advocates for space systems. When I think of GLOBAL force projection, I 
don't think of flying 18 hours from point A to point B to deliver 
ordnance, only to fly 18 hours home. I don't think of months of 
preparation time to bring forces into theater. I don't think of 
sensitive negotiations with allies for basing rights. I think of 
space--24 hour per day global presence. Yet space has, so far, been 
relegated a support role--providing information superiority for our 
land, sea, and air forces. Do you think space should have a force 
projection role? What space systems other than spaceplane, should we 
develop for force projection?
    General Myers. Our ability to address emerging threats may well 
require the use of space in a force application role. For the time 
being, however, the U.S. has not fielded operational space weapon 
systems. U.S. Space Command's third mission, Force Application, 
requires them to plan for and conduct research and development of 
space-based systems as insurance should the nature of threats and 
opportunities significantly change. Some of this R&D is focusing on 
concepts such as the spaceplane, exo-atmospheric common aero vehicles, 
and space-lased lasers. I would anticipate that developing these 
capabilities would serve as a deterrent to potential adversaries, and 
may be appropriate should the policy decision be made to field them.

                        unmanned aerial vehicles
    14. Senator Smith. Do you think our global force projection 
aircraft need to be manned (given our low tolerance for casualties and 
breakthroughs in automation and remote operations)? Should aircraft 
like Global Hawk be delivering ordnance? General Ryan recently promoted 
spiral development for Global Hawk--and said our U2s are attriting--is 
Global Hawk or other unmanned aerial vehicles more or less vulnerable 
than U2s--esp. in light of recent losses in our UAVS over Iraq? Is 
reopening the U2 line a cost-effective option?
    General Myers. Advances in automation and remote technologies have 
created opportunities for us to expand the use of unmanned aerial 
vehicles (UAVs)in numerous military operations(e.g., Nobel Anvil, 
Southern Watch, Enduring Freedom). As UAV programs continue to mature 
and meet operational requirements, we will increasingly depend upon 
unmanned vehicles to carry out missions which place manned vehicles in 
unnecessary risk.
    The GLOBAL HAWK program was initiated with the goal of alleviating 
shortfalls in Intelligence, Surveillance and Reconnaissance (ISR) 
capabilities. There exists the possibility that during spiral 
development of GLOBAL HAWK, the capability to deliver ordnance may be 
added. However, it could possibly delay achieving the required ISR 
mission if an attempt to add the capability to deliver ordnance is made 
at this juncture, as reengineering of the current system would likely 
be required. In addition, other programs such as the Unmanned Combat 
Air Vehicle (UCAV) are already being developed to address the 
capability to deliver ordnance.
    The current plan for spiral development of GLOBAL HAWK is necessary 
in order to both achieve the fastest possible introduction of high 
altitude, long endurance unmanned ISR support while simultaneously 
allowing the program to keep pace with the rapidly improving 
technologies associated with these systems.
    While we have experienced the loss of several PREDATOR air vehicles 
over Iraq, GLOBAL HAWK was designed to fly at higher altitude (65,000 
feet vice 25,000 feet). This has the added benefit of defeating many 
anti-air capabilities. Due to its high altitude capability, GLOBAL HAWK 
has proven to be less vulnerable than the PREDATOR.
    The U2, while tremendously capable, is nearing the end of it's 
service life and represents aging airframe technology. To reopen the U2 
production line would be costly. The current plan is for GLOBAL HAWK to 
replace the U2 when it demonstrates the ability to provide comparable 
capabilities. Prior to that occurring, it would be premature to make 
any force structure decisions.

                        air force space programs
    15. Senator Smith. It was encouraging to see a space program, 
``Space Lift,'' as the Air Force's number one priority. Unfortunately, 
it is an unfunded priority. While more space programs are on this 
year's list than ever before, space programs still constitute a 
disproportional small percentage of Air Force unfunded priorities--are 
space programs properly funded or is there a continuing aircraft bias 
in the Air Force that tends just to support expensive fighter upgrades?
    General Myers. I agree that correctly funding space is a concern. 
Accordingly, I have made Joint Warfighting and Transformation two of my 
highest priorities. Within this context, we will attempt to balance 
space programs against more traditional programs to provide optimum 
capabilities to the Joint Warfighter. I believe funding decisions will 
be based upon operational requirements and that space programs will be 
properly represented as opposed to any institutional bias favoring 
aircraft.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
                       precision guided munitions
    16. Senator Santorum. In 1998, President Clinton ordered Tomahawk 
cruise missile attacks on Afghanistan and Sudan in response to the 
terrorist attacks on U.S. embassies in Kenya and Tanzania. Later, the 
U.S. led an air-dominated attack on the Yugoslav forces of Slobodan 
Milosevic, relying on large quantities of stand-off munitions to halt 
the aggression of these military and police forces. In a classified 
briefing I received, I learned of the approximate number of precision 
guided munitions (PGMs) or preferred munitions that were in the 
inventory of the U.S. military at the time. Can you tell me if the U.S. 
has enough PGMs to enforce a robust military operation against the 
parties responsible for carrying out the terrorist attacks of September 
11, 2001 in New York City and Arlington, Virginia? Are there sufficient 
PGMs to support an attack on the perpetrators of these terrorist 
attacks and yet still provide a necessary reserve for other possible 
military engagements? Lastly, do you support the competitive 
procurement of laser guided bombs?
    General Myers. Considering our worldwide standing ordnance 
stockpiles, which contain a wide array of cruise missiles, precision 
guided munitions and more conventional ordnance, and industry's ability 
to flex production, we are confident that we have sufficient capacity 
to carry out our global war on terrorism, while still retaining an 
adequate, but reduced, Reserve for future military engagements. 
However, over the entire course of Operation Enduring Freedom, our 
expenditure rates for select PGMs, such as Joint Direct Attack 
Munitions (JDAM), exceeded current production rates. We have received 
supplemental funding to increase munitions production rates and enhance 
industry's long term production capacity for both JDAM and the family 
of laser guided bombs. We also would support competitive procurement of 
laser guided bombs.

                            cyber-terrorism
    17. Senator Santorum. One of the main concerns of this committee 
has been the threat posed by cyber-terrorists or by those who carry out 
malicious/criminal attacks on our economy and/or government. In your 
opinion, what are the things that we are doing well with respect to 
cyberthreats?
    General Myers. We are doing well in identifying cyber threats in a 
timely manner and reacting with sufficient speed to guard against what 
I would consider a loss of our command, control, and communications 
capability. Making this possible are several interrelated things. The 
Commander Joint Task Force, Computer Network Operations watches the 
cyber environment for threats as well as managing the Information 
Assurance Vulnerability Alerts (IAVA) program. IAVA provides DOD 
critical information to resolve a recognized information 
vulnerabilities that if exploited could cause grave damage to our C\4\ 
networks.
    We also have instituted an Information Condition program that 
outlines certain procedures and actions that must be taken to guard 
against a cyber threat. USSPACECOM is assigned responsibility to manage 
worldwide the military Information Condition program.

    18. Senator Santorum. Conversely, what are those areas that require 
additional effort?
    General Myers. Two primary areas: People and allied/coalition 
interoperability.
    People are our primary resource in protecting our digital 
environment. That means a training continuum to meet the ever-growing 
sophistication of the cyber threat. System administrators are the foot 
soldiers of the cyber battlefield. They must not only know the basic 
skills necessary to keep the networks up and functioning, but must be 
able to detect, defend, react, and restore those networks when a cyber 
threat impacts performance. One thing we are doing is pursuing a 
standard skill set for our system administrators that cross service 
boundaries and provide known & expected level of skill expectations.
    Future warfare means working with coalitions and allies. We need to 
improve our C\4\ interoperability and we are working to accomplish 
this. Coalition Wide Area Networks (COWANs) are proving themselves 
tactically valuable. We are working to establish doctrine and policy to 
govern setup, operations, security certification & accreditation, and 
developing training opportunities to refine all of the above.

    19. Senator Santorum. Can you tell me the types of actions or 
policy directives you will consider implementing to guard against 
cyberthreats as Chairman of the Joint Chiefs?
    General Myers. Future warfare on the cyber battlefield requires an 
interagency approach that cross DOD and non-DOD governmental lines. We 
need to improve an already growing interaction to further develop an 
effective information assurance umbrella that protects both military 
networks and critical civilian infrastructures. This will support 
Homeland Defense and National Defense objectives.

    20. Senator Santorum. Do you believe that the cyber security 
scholarships authorized by this committee will be useful in helping to 
address the shortage of skilled personnel to address cyberthreats?
    General Myers. I am strongly in favor of this scholarship action by 
the committee. We hope to see more colleges become accredited to 
support this scholarship action and we ask the committee's continued 
support for a most welcomed initiative. Young men and women who take 
advantage of this scholarship program will focus on cyber security/
information assurance. The cyberthreat will grow as information 
technology advances. People skilled in the field of information 
assurance/cyber security will play the most important role in our 
government in protecting our critical infrastructures from the 
cyberthreat. This scholarship program also generates opportunities for 
us to employ some of the Nation's brightest men and women in government 
service. Once they have experienced the challenges that face us in 
information assurance/cyber security many of them will remain for a 
career.

                             the abm treaty
    21. Senator Santorum. In your opinion, do you believe that the 
provisions specifying that the President of the United States must 
secure additional congressional approval before spending money that 
conflicts with the ABM Treaty strengthens or weakens the President's 
hand in consultations with the Russian government?
    General Myers. As you are aware, after my September 13, 2001, 
testimony, the provisions of the Fiscal Year 2002 Defense Authorization 
Bill mentioned in your question were withdrawn from the bill. The 
United States provided formal notification of its withdrawal from the 
ABM Treaty, effective 6 months from 13 December 2001, due to new 
national security threats and the imperative of defending against them. 
Although President Putin said the U.S. decision to withdraw from the 
ABM Treaty is a ``mistake,'' he also said that U.S. missile defense is 
no threat to the security of the Russian Federation and both countries 
should create, as soon as possible, a ``new framework of our strategic 
relationship.'' We are currently engaged in intensive consultations 
with the Russian government intended to move beyond the Cold War 
mentality enshrined in the ABM Treaty. To give these consultations 
every chance for success, I believe it is essential that we maintain 
maximum flexibility as we proceed through the coming months.

                      national guard and reserves
    22. Senator Santorum. What do you think is the appropriate role of 
the National Guard and Reserves as to the mission of homeland defense?
    General Myers. As the requirements of Homeland Security evolves, we 
will find many mission areas for the National Guard and Reserves. 
Homeland security is a vital mission for the Reserve component forces, 
however it clearly is not, nor should it be their only mission. Reserve 
component forces must also continue to fulfill their other vital 
peacetime and wartime missions, to include force generation, wartime 
augmentation, and as a strategic Reserve.
    A vital aspect of homeland security is the dual roles performed by 
the National Guard, in which they serve both their individual states 
and our Nation as a whole. Most Guardsmen presently safeguarding our 
airports nationwide, are mobilized in a Title 32 state active duty 
status. Only through existing Federal wartime missions, and the 
subsequent equipping and training initiatives, is the National Guard 
able to successfully perform their multiple missions. The suitable role 
of the National Guard and Reserves in fulfilling a homeland security 
mission is to perform a variety of mutually protective homeland 
security missions-providing safety of our land, airspace, and coastal 
waterways-defending the U.S. populace and protecting its critical 
infrastructures.
    [Deleted].

    23. Senator Santorum. What are the missions or tasks that you 
believe the National Guard and Reserves are ideally suited for in the 
area of homeland defense?
    General Myers. In addition to fulfilling the tasks as described in 
the previous question, Reserve component members are ideally suited for 
sustaining homeland security missions by fulfilling a variety of 
operational and support tasks, to include: security, logistics, 
transportation, intelligence, command & control, administrative, and 
training base support functions.
    The National Guard and Reserves are capable of performing a wide 
range of homeland security missions and tasks. In essence, Reserve 
component forces serve as one of the military's most visible 
institutional links to the American society-for Guardsmen and 
reservists are directly representative of the many communities from 
which they are from and which they are protecting.
    The missions and tasks that Guardsmen and reservists are ideally 
suited for are those, which leverage both their prior service and 
civilian acquired skills. Specifically, members working in civilian 
life in such specialized fields as emergency management, security & law 
enforcement, aviation, hazardous material management, medicine, 
computer technology, civil assistance, and human services are able to 
apply their professional expertise by serving in units performing 
similar tasks for homeland security.

    24. Senator Santorum. Do you believe that National Guard and 
Reserves end strength ought to be on the table during the Quadrennial 
Defense Review and the Administration's Strategic Review?
    General Myers. Yes. We are a total force. It is important that we 
not separate our forces into segments, especially when making 
adjustments that will potentially affect the entire force and our 
overall warfighting ability.

    25. Senator Santorum. If so, how might end strength level 
reductions impact our ability to carry out the homeland defense 
mission?
    General Myers. Before we can decide whether force structure changes 
may be necessary, we must first determine the appropriate homeland 
defense role for the Department of Defense (DOD). At the present time, 
the DOD homeland defense role is still emerging. Once this role is 
determined, mission requirements will follow. We can then assign and 
apportion the proper force structure--Active, Guard, and Reserve--to 
meet the mission requirements.
    As noted earlier, homeland security mission is only one of our 
significant missions. Sufficient Reserve component forces must also be 
readied to fulfill other wartime missions, to include: force generation 
(training & preparing units for deployment), augmentation of Active-
Duty Forces (to support war plans and contingency missions), and to 
serve a strategic Reserve (to exploit operational opportunities and to 
avert tactical disasters). These issues must also be considered during 
force structure discussions.

                            objective force
    26. Senator Santorum. I am concerned that the Army is not receiving 
the resources necessary to maintain its legacy systems, support a new 
interim force and transition to an effective objective force. It 
appears that the Army has been expected to transform itself without an 
increase in its budget. That is, the Army has been expected to 
transform by taking funds ``out of hide.'' Regrettably, the Army lacks 
the resources needed to transform and sustain current modernization 
requirements. What actions can you take to ensure the viability of the 
U.S. Army and its ability to transform to meet 21st century threats? 
Will you be a vocal supporter of additional resources to help address 
the Army's modernization needs? Lastly, will you strongly support 
robust increases in science and technology funds to support the Army's 
transformation initiative?
    General Myers. The Army has worked hard to maintain its current 
readiness and warfighting capabilities while transforming for tomorrow. 
I will work with the SecDef to ensure that future budget submissions 
provide funding for the Army's Interim and Objective Force, while 
ensuring the Army priority is to be ready for war today.
                                 ______
                                 
    [The nomination reference of Gen. Richard B. Myers, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 4, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chairman of the 
Joint Chiefs of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under Title 10, 
United States Code, Sections 601 and 152:

                             To be General

    Gen. Richard B. Myers, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Richard B. Myers, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
              Biographical Sketch of Gen. Richard B. Myers
    General Richard B. Myers is the Vice Chairman of the Joint Chiefs 
of Staff. In this capacity, he is a member of the Joint Chiefs of Staff 
and the Nation's second highest ranking military officer. General Myers 
is the fifth officer to hold the position.
    General Myers was born in Kansas City, Missouri. He is a 1965 
graduate of Kansas State University, and holds a Masters Degree in 
Business Administration from Auburn University. The General has 
attended the Air Command and Staff College at Maxwell Air Force Base, 
Alabama; the U.S. Army War College at Carlisle Barracks, Pennsylvania; 
and the John F. Kennedy School of Government at Harvard University.
    General Myers entered the Air Force in 1965 through the Reserve 
Officer Training Corps program. His career includes operational command 
and leadership positions in a variety of Air Force and Joint 
assignments. General Myers is a command pilot with more than 4,000 
flying hours in the T-33, C-21, F-4, F-15 and F-16 including 600 combat 
hours in the F-4.
    From August 1998 to February 2000, General Myers was the commander 
in chef, North American Aerospace Defense Command and U.S. Space 
Command; commander, Air Force Space Command; and Department of Defense 
manager, space transportation system contingency support at Peterson 
Air Force Base, Colorado, responsible for defending America through 
space and intercontinental ballistic missile operations. Prior to 
assuming that position, he was the commander, Pacific Air Forces, 
Hickam Air Force Base, Hawaii, from July 1997 to July 1998. From July 
1996 to July 1997 he served as the assistant to the chairman of the 
Joint Chiefs of Staff, the Pentagon; and from November 1993 to June 
1996 General Myers was the commander of U.S. Forces Japan and 5th Air 
Force at Yokota Air Base, Japan.
    As the Vice Chairman, General Myers serves as the Chairman of the 
Joint Requirements Oversight Council, Vice Chairman of the Defense 
Acquisition Board, and as a member of the National Security Council 
Deputies Committee and the Nuclear Weapons Council. In addition, he 
acts for the Chairman in all aspects of the Planning, Programming and 
Budgeting System to include participating in meetings of the Defense 
Resources Board.
    General Myers is married and has three children, two daughters and 
a son.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Gen. Richard 
B. Myers, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Richard Bowman Myers.

    2. Position to which nominated:
    Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    September 4, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    1 March 1942; Kansas City, Missouri.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Jo Myers (Rupp).

    7. Names and ages of children:
    Nicole M. Little, 30; Erin L. Voto, 28; Richard B. Myers, Jr., 22.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    Vice President, Myers Brothers of Kansas City (Non-active position 
with family-owned business).

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Air Force Association, Kansas State University Alumni Association, 
U.S. Army War College Alumni Association, Sigma Alpha Epsilon 
(Fraternal), The Retired Officers Association, Vietnam Veterans of 
America.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Ira Eaker Fellow, Air Force Association; 1991 Alumni Fellow Award, 
College of Engineering, Kansas State University; Kansas State 
University, Engineering Hall of Fame; General Thomas D. White Space 
Award; General James V. Hartinger Space Award; Canadian Meritorious 
Service Cross; American Academy of Achievement Award.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                       Gen. Richard B. Myers, USAF.
    This 31st day of August, 2001.

    [The nomination of Gen. Richard B. Myers, USAF, was 
reported to the Senate by Chairman Levin on September 14, 2001, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on September 14, 2001.]

 
NOMINATIONS OF GEN. PETER PACE, USMC, FOR REAPPOINTMENT TO THE GRADE OF 
GENERAL AND FOR APPOINTMENT AS THE VICE CHAIRMAN OF THE JOINT CHIEFS OF 
  STAFF; GEN. JOHN W. HANDY, USAF, FOR REAPPOINTMENT TO THE GRADE OF 
   GENERAL AND FOR APPOINTMENT AS COMMANDER IN CHIEF, UNITED STATES 
  TRANSPORTATION COMMAND AND COMMANDER AIR MOBILITY COMMAND; AND ADM. 
JAMES O. ELLIS, JR., USN, FOR REAPPOINTMENT TO THE GRADE OF ADMIRAL AND 
 FOR APPOINTMENT AS COMMANDER IN CHIEF, UNITED STATES STRATEGIC COMMAND

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:19 a.m., in 
room SH-216, Hart Senate Office Building, Senator Max Cleland, 
presiding.
    Committee members present: Senators Cleland, Landrieu, 
Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Warner, Roberts, 
Hutchinson, and Collins.
    Committee staff members present: David S. Lyles, staff 
director.
    Majority staff members present: Richard D. DeBobes, 
counsel; and Terence P. Szuplat, professional staff member.
    Minority staff members present: L. David Cherington, 
minority counsel; Suzanne K.L. Ross, research assistant; and 
Richard F. Walsh, minority counsel.
    Professional staff members present: Charles W. Alsup, Brian 
R. Green, Gary M. Hall, Carolyn M. Hanna, and Thomas L. 
MacKenzie.
    Staff assistants present: Dara R. Alpert, Daniel K. 
Goldsmith, and Thomas C. Moore.
    Committee members' assistants present: Barry Gene (B.G.) 
Wright, assistant to Senator Byrd; Andrew Vanlandingham, 
assistant to Senator Cleland; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; Eric Pierce, assistant to Senator Ben Nelson; J. Mark 
Powers, assistant to Senator Inhofe; George M. Bernier III, 
assistant to Senator Santorum; Robert Alan McCurry, assistant 
to Senator Roberts; James P. Dohoney, Jr., assistant to Senator 
Hutchinson; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

            OPENING STATEMENT OF SENATOR MAX CLELAND

    Senator Cleland. The hearing will come to order.
    As might be obvious to the audience, you can see the 
terribly low state of our readiness with Senator Roberts and 
myself chairing the hearing. [Laughter.]
    We need you fine men to fill the holes out there and do the 
great job for our country that we want you to do.
    I would like to thank all of you for your attendance at the 
hearing today. The Senate is considering the National Defense 
Authorization Act for Fiscal Year 2002, and Chairman Levin has 
asked that I begin this important hearing while he manages the 
bill on the Senate floor.
    This morning we will recognize the nominations of three 
individuals to senior leadership positions in the United States 
Armed Forces: Gen. Peter Pace, United States Marine Corps, to 
be Vice Chairman of the Joint Chiefs of Staff; Gen. John Handy, 
United States Air Force, to be Commander in Chief, United 
States Transportation Command (USTRANSCOM), and Commander, Air 
Mobility Command (AMC); and Adm. James O. Ellis, Jr., United 
States Navy, to be Commander in Chief, U.S. Strategic Command 
(STRATCOM). We will need your strategic guidance as the days 
move forward.
    On behalf of the Armed Services Committee, I would like to 
welcome you and your families. I apologize that my schedule and 
recent events prevented me from meeting with each of you. 
However, having read your biographies, I have tremendous 
confidence in the ability of each of you to carry out your new 
positions. You certainly have my support.
    We have a tradition of asking nominees to introduce family 
members who are present. General Pace.
    General Pace. Mr. Chairman, thank you very much. Several 
members of my family are present today; first is my wife Lynne, 
who has held my hand for 34 years and been my wife for 30; our 
daughter, Tiffany Marie, who is a year 2000 graduate of the 
University of New Hampshire, is currently working with a law 
firm here in Washington, DC as a research assistant; my brother 
Sim, a 1965 graduate of the United States Naval Academy, United 
States Marine, 6 years active duty, twice wounded in combat in 
Vietnam; his wife of 33 years Mary; and one of their three 
sons, Bradley, who works with Worldcom in the Washington, DC 
area. That is my family present today, sir. My son, who is not 
here, is a First Lieutenant in the United States Marine Corps. 
He just returned to Camp Pendleton, California, from a 6-month 
deployment. I regret that he cannot be here, but I am proud he 
is serving his country.
    Senator Cleland. Hoorah.
    General Pace. Thank you, sir.
    Senator Cleland. General Pace, we are honored to have you 
and your family here today. I now see that part of the secret 
of your success is the great support you have had from your 
family. We are honored to have you and your family members 
here, especially those who have served the country.
    I would like to thank you for all your help over the past 2 
years. General Handy, why don't you introduce your family.
    General Handy. Yes, sir. I am pleased to introduce my wife 
of 33 years, Mickey; my sister, Margaret McLaurin; her husband, 
Bill, who came from Kernersville, North Carolina, to be with me 
this morning; my secretary, Eleanor Bain, is also in the 
cheering section, and I am proud because she is an 
extraordinary member of my family, too.
    Senator Cleland. Thank you very much, General Handy. Ladies 
and gentlemen, we are glad to be with all of you.
    Admiral Ellis, do you have family members with you today?
    Admiral Ellis. Thank you, Senator Cleland. Present with me 
today is my wife, Polly, my bride and partner over these 31 
years of an incredible journey. My son cannot be with us today. 
He is a Captain in the United States Army serving with the 2nd 
Ranger Battalion in Fort Lewis, Washington, and is currently 
deployed to Germany. I have a daughter who lives in California 
and also cannot be with us, but she presented us with a new 
granddaughter last month. Thank you very much.
    Senator Cleland. Thank you very much. You are very kind to 
mention those distinguished members of your family.
    General Handy, I would like to thank you for all your help 
over the last 2 years in formulating the Air Forces' plan to 
invest in the C-130J aircraft. As an airlifter, General Handy, 
you understand the importance of investing in this next 
generation of aircraft, and I personally appreciate your vision 
and work on this program.
    I think that your experience and background make you more 
than qualified to command the United States Transportation 
Command and Air Mobility Command. No matter what form of action 
the President takes in responding to the recent terrorist 
attacks on our Nation, your position will be vital in getting 
the mission started, sustaining the mission, and bringing our 
troops home.
    General Pace has led marines in Vietnam, Korea, Japan, and 
Somalia. For the last year as Commander in Chief, U.S. Southern 
Command, he has guided our military relations with 32 nations 
in Central America, South America, and the Caribbean. If 
confirmed for the position of Vice Chairman of the Joint Chiefs 
of Staff, General Pace will be the first marine to be the Vice 
Chairman of the Joint Chiefs of Staff.
    Admiral Ellis, as Commander in Chief, U.S. Strategic 
Command you will help shape and implement the ongoing review of 
this Nation's long-range nuclear force structure. That is a 
vital mission.
    Again, I welcome you all. You are going to play a pivotal 
role in our military in the days to come.
    I will recognize my colleague here, Senator Roberts, for 
any comments he might want to make.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Mr. Chairman, it is a pleasure to serve 
with you as chairman during this important confirmation 
hearing. We have been riding either stagecoach or sidesaddle, 
or whatever the term should be, for some time. It is a real 
privilege to be here with you.
    I have a very short statement, some of which will be 
repetitive. But it bears repeating, especially because of the 
quality of the witnesses and their families.
    Welcome to General Pace, Admiral Ellis, and General Handy, 
and congratulations on your nominations.
    I would like to say the world has changed dramatically 
since you were nominated by the President for these high 
positions. The importance of these key positions and the grave 
responsibilities of the individuals placed in these commands 
have only intensified since the infamous day of September 11. 
If you are confirmed, as I fully expect, we will look to you 
for innovative leadership in the difficult, challenging years 
ahead.
    On September 13, only 2 days after the terrorist attacks on 
the World Trade Center and the Pentagon, we conducted the 
nomination hearing for General Myers. The Senate quickly 
confirmed him as the next Chairman of the Joint Chiefs. It was 
imperative then, and it remains so today, that we demonstrate 
our resolve and our commitment to meet the new challenges we 
face by trying to expedite and facilitate these nominations and 
provide the Secretary of Defense the strong and determined 
military leaders he needs to fight the war on terrorism. I 
thank the chairman for scheduling this hearing so promptly.
    General Pace is no stranger to this committee. If 
confirmed, he will be the first marine to serve in the capacity 
of Vice Chairman, a milestone this marine and all marines, past 
and present, can certainly be proud of. In his present capacity 
as Commander in Chief, United States Southern Command, General 
Pace has confronted firsthand the very corrosive effects of 
terrorism. There are numerous, difficult challenges facing the 
United States and our friends and allies in the Southern 
Command region. I commend General Pace on his service in that 
area of operations. His many leadership accomplishments in 
numerous joint billets worldwide with combat marines will serve 
him well as the Vice Chairman of the Joint Chiefs of Staff.
    Admiral Ellis is also well known to this committee. He has 
had a most distinguished career as a naval aviator. He 
performed superbly as the NATO Joint Force Commander for 
Operation Allied Force, exercising operational command of U.S. 
and allied forces involved in Kosovo combat and humanitarian 
operations. He also served admirably as the Deputy Chief of 
Naval Operations for Plans and Policies. He is a nuclear-
trained officer with extensive command experience.
    General Handy, as Vice Chief of Staff for the Air Force, 
has played a key senior leadership role in directing the air 
staff, serving on the Joint Requirements Oversight Council. He 
has had extensive experience in the United States 
Transportation Command, serving as Director of Operations and 
Logistics. He is a command pilot with more than 4,800 flying 
hours, primarily in airlift aircraft, as indicated by our 
distinguished chairman.
    General Handy and all of our witnesses are eminently well 
qualified for the positions to which they have been nominated. 
Gentlemen, you have my support. I applaud your willingness to 
serve and I look forward to working with you.
    Thank you, Mr. Chairman.
    Senator Cleland. Thank you, Senator Roberts.
    Senator Hutchinson, do you have any comments to make about 
our panelists?

              STATEMENT OF SENATOR TIM HUTCHINSON

    Senator Hutchinson. I have had the opportunity to visit 
with all of the nominees today, and they are, as Senator 
Roberts said, very qualified.
    I also commend the chairman and the committee for the 
determination to move quickly on these confirmations. We cannot 
choose the times in which we live, and these times are 
difficult. They are trying, challenging, and dangerous. While 
we grieve the loss and suffer the pain of the tragedy of recent 
days, it is also an opportunity for good men and qualified 
leaders to serve and serve well. While I do not relish the task 
that you have ahead of you, I am assured that we have the right 
people for the times in which we live. I look forward to 
supporting your nominations.
    Senator Cleland. Thank you very much, Senator Hutchinson.
    Now we have a special introduction by Senator Bill Nelson, 
who has a word to say about one of our nominees.

                STATEMENT OF SENATOR BILL NELSON

    Senator Bill Nelson. Mr. Chairman, I could, of course, 
speak for all the nominees, but I particularly want to speak on 
behalf of General Pace, a resident of my State. He is 
particularly suited for this time in this position because of 
his extraordinarily honed skills as a diplomat.
    I had the privilege of observing him in action earlier this 
year with our chairman, Senator Levin, and several other 
members of the committee because we went to southern Colombia 
and into the jungles. We were accompanied by General Pace. It 
soon became apparent that this was a military officer 
extraordinaire, not only skilled in matters of military, but 
skilled in matters of diplomacy as well.
    I was intrigued, for example, when he was extolling the 
fact that the location of the Southern Command, once we had to 
leave the Republic of Panama, was put in a crucial area where 
the traffic was the highest for the diplomats and governmental 
officials from all of the Central and South American countries. 
The Southern Command is in Miami, which is a focal point for so 
many of these governmental officials who travel in and out of 
the country. He explained how that gave him the additional 
opportunity to interact and build a personal relationship with 
the leaders and diplomats of foreign governments. That is 
modernized thinking about how we are going to conduct our 
military affairs. Indeed, as we now are responding to the 
tragedy of September 11, we see that not only is a military 
response necessary, but that a diplomatic response is required 
for the best possible, most successful response.
    It is interesting how Gen. Pete Pace was nominated before 
the September 11 tragedy to be Vice Chairman, and how the value 
of that nomination has been underscored since.
    I am happy to be here. Of course, I could say other things, 
but I do not want to get the other services all up tight about 
the fact that General Pace is going to be the first marine in 
this position. It is an exceptionally good choice, and I am 
glad that I can be here.
    I apologize for not being present earlier, but we just had 
a crucial vote on the National Defense Authorization Act for 
Fiscal Year 2002 and the chairman had asked me to stay and help 
him.
    I am glad to be here to highly recommend Gen. Pete Pace.
    Senator Cleland. Thank you very much, Senator Nelson. We 
appreciate those glowing remarks. General Pace, you have a lot 
to live up to there. [Laughter.]
    At this point, I would like to submit the statements of 
Senators Thurmond and Allard.
    [The prepared statements of Senators Thurmond and Allard 
follow:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman, I want to join Chairman Levin and Senator 
Warner in welcoming General Pace, General Handy, and Admiral Ellis. 
Although each of these officers has had a long and distinguished 
career, the fact that Admiral Ellis is a native of Spartanburg, South 
Carolina, makes him stand out in my eyes.
    To each nominee, I want to extend my congratulations. The 
challenges ahead have always been enormous, but after the tragic events 
of September 11, they will be greater yet. I believe I can speak for 
every member of the committee when I say that you should not hesitate 
to call on us if you need support as you carry out the national 
security role of your command.
    I wish you success and expect the Senate to act swiftly to confirm 
your promotions and appointments.
    Thank you, Mr. Chairman.
                                 ______
                                 
               Prepared Statement by Senator Wayne Allard
    Thank you Mr. Chairman, I want to thank the three of you for coming 
here today. Your areas of responsibility are of vital interest and of 
strategic importance to the United States. You are accepting an immense 
amount of responsibility at a most important and challenging time in 
our country. I want to thank you in advance for your efforts, your 
dedication to duty, and your overwhelming commitment to the soldiers, 
sailors, airmen, and marines in your charge.
    Your areas of responsibility are of much political and economic 
interest to the United States. There are areas of conflict, but of 
opportunity as well. I have the upmost confidence in your ability to 
handle them.
    So gentlemen, I thank you for your service, and I look forward to 
working with you.

    Senator Cleland. The nominees have responded to the 
committee's prehearing policy questions and our standard 
questionnaire.
    It is now time for opening statements. Why do we not go 
General Handy, General Pace, and Admiral Ellis? General Handy.

STATEMENT OF GEN. JOHN W. HANDY, USAF, FOR REAPPOINTMENT IN THE 
  GRADE OF GENERAL AND FOR APPOINTMENT AS COMMANDER IN CHIEF, 
   UNITED STATES TRANSPORTATION COMMAND, AND COMMANDER, AIR 
                        MOBILITY COMMAND

    General Handy. Senator, thank you very much for the kind 
remarks from all of you this morning. It is with a great deal 
of humility that I appear before you today. You have our 
statements submitted for the record, and I look forward to any 
questions that we might engage in throughout this morning. 
Thank you very much.
    Senator Cleland. Thank you very much, General.
    General Pace.

 STATEMENT OF GEN. PETER PACE, USMC, FOR REAPPOINTMENT IN THE 
 GRADE OF GENERAL AND FOR APPOINTMENT AS THE VICE CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    General Pace. Sir, I would like to thank you and the 
committee for the opportunity to appear before you this 
morning. It is indeed a great honor to be nominated to be the 
Vice Chairman of the Joint Chiefs of Staff. I pledge to you and 
the members of the committee that, if confirmed, I will do 
everything in my power to ensure that the magnificent men and 
women in our Armed Forces receive all the support that they so 
richly deserve.
    I would also like to thank the members of this committee 
for your strong bipartisan support of all of us in uniform. It 
makes a difference. Although Senator Nelson has had to leave, I 
would like to thank him publicly for adopting me today, for 
saying things about me that my father would be scratching his 
head about and my mother would be saying, that is exactly 
right. [Laughter.]
    But I deeply appreciate him taking time to do that.
    I look forward to your questions, sir.
    Senator Cleland. Thank you very much, sir.
    Admiral Ellis.

 STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, FOR REAPPOINTMENT 
  IN THE GRADE OF ADMIRAL AND FOR APPOINTMENT AS COMMANDER IN 
             CHIEF, UNITED STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman. It is a personal 
and professional pleasure to appear before you today as the 
nominee for the position of Commander in Chief, United States 
Strategic Command. As you have noted, in this time of 
unprecedented challenge and change for our Armed Forces and our 
Nation, I too am humbled by the prospect of continued service 
in this post alongside the incredibly talented men and women in 
both the Strategic Command and in its service components. If 
confirmed, I will add all my energies to theirs in sustaining 
and enhancing the unique and essential contributions that 
STRATCOM makes to our national security.
    I thank you and the members of the committee for the speed 
with which you are moving on this with the pace of other events 
which make demands on your time. As with the other nominees, I 
look forward to your questions.
    Senator Cleland. Thank you very much, sir.
    The nominees have responded to the committee's prehearing 
policy questions and to our standard questionnaire. Without 
objection, these responses will be made a part of the record.
    The committee also has received the required paperwork on 
the nominees, and we will be reviewing that paperwork to make 
sure that it is in accordance with the committee's 
requirements.
    There are several standard questions that we ask nominees 
who come before the committee. I would like to ask all of you 
the same question, and you can answer all at once.
    Do you agree, if confirmed for this high position, to 
appear before this committee and other appropriate committees 
of Congress and to give your personal views, even if those 
views differ from the administration in power?
    General Handy. Yes, sir.
    General Pace. Yes, sir.
    Admiral Ellis. Yes, sir.
    Senator Cleland. Thank you.
    Have you adhered to the applicable laws and regulations 
governing conflict of interest?
    General Handy. Yes, sir, I have.
    General Pace. Yes, sir, I have.
    Admiral Ellis. Yes, sir, I have.
    Senator Cleland. Thank you.
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    General Handy. No, sir, I have not.
    General Pace. No, sir, I have not.
    Admiral Ellis. No, sir, I have not.
    Senator Cleland. Will you ensure that the joint staff 
complies with deadlines established for requested 
communications, including prepared testimony and questions for 
the record in hearings?
    General Handy. Yes, sir.
    General Pace. Yes, sir.
    Admiral Ellis. Yes, sir.
    Senator Cleland. Thank you.
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    General Handy. Yes, sir, I will.
    General Pace. Yes, sir, I will.
    Admiral Ellis. Yes, sir, I will.
    Senator Cleland. Will those witnesses be protected from 
reprisal for their testimony?
    General Handy. Yes, sir, they will be.
    General Pace. Yes, sir, they will be.
    Admiral Ellis. Yes, sir, they will be.
    Senator Cleland. Thank you.
    We will proceed with the first round of questions limited 
to 6 minutes for each Senator on the basis of the early bird 
rule. I will let my distinguished colleague, Senator Roberts, 
go ahead with questions.
    Senator Roberts. I thank the distinguished chairman.
    General Pace, in the Senate version of the National Defense 
Authorization Act for Fiscal Year 2002 we worked hard to put a 
provision establishing a central transfer account for all of 
DOD's combatting terrorism programs. I know that it is hard to 
define what is and what is not terrorism. But we had some 
objections from the administration at that time in the House 
conference. They did not want to go down that road. The 
provision was not included in the final bill.
    However, the DOD, as directed by Congress, has now 
consolidated all of its combatting terrorism programs under the 
Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict. Having taken that step, do you believe that 
establishing a central transfer account for all of the 
Department's combatting terrorism programs is a next logical 
step?
    General Pace. Senator, thank you. I do not have the 
specifics in my head yet of the mechanisms that function here 
in Washington, as far as funding. My approach to answer that 
question would be to determine the most efficient and effective 
way to support our service members in the field, and if a 
centralized account would, in fact, provide the best 
protections for the young men and women in uniform, then I 
would support that, sir. But sitting here before you today, I 
do not understand the mechanism well enough to define it.
    Senator Roberts. We can have a good conversation about 
that. We were trying to determine from a funding standpoint and 
an authorizing standpoint exactly where we were in combatting 
terrorism and force protection within the DOD. It sounds easier 
than it is.
    General Pace. Yes, sir.
    Senator Roberts. We will be happy to visit with you about 
that.
    President Bush recently announced the establishment of a 
cabinet level homeland security agency led by Governor Ridge. 
How will the establishment of this agency, in your view, impact 
the Department's current supporting role in combatting domestic 
terrorism?
    My specific question is, will this agency have ultimate 
authority over DOD's combatting terrorism budget, including 
force protection? There is a school of thought by many 
commissions that the distinguished chairman and I have worked 
with on how you approach terrorism, that says in the new 
position or homeland security agency somebody has to have the 
horsepower and the budget authority. How is that going to match 
up with what some of us feel is a pretty important pasture that 
we are in charge of? Can we work that out? How do you feel 
about that?
    General Pace. Senator, I think we can work that out, and I 
think that the position itself will help focus the government 
debate on the proper way ahead. Clearly, the Department of 
Defense has many things that we can do to assist in homeland 
defense. There are also some lines which, as a citizen, I would 
not want to cross as a person in uniform as we work together to 
find out how our intelligence network, Reserve Forces, and 
National Guard Forces, which in a very real measure are forward 
deployed today inside the United States, can assist with 
homeland defense. Just like how our Active Forces are forward 
deployed overseas and Reserves support them, in a very real way 
the Reserve and Guard Forces are forward deployed in the 
communities around the Nation, and they have tremendous 
capabilities that they can bring to bear. As we work together 
to determine how best and most efficiently to use the resources 
involved, I think that having the new cabinet level position is 
going to assist us all in focusing the debate in making the 
right decisions.
    Senator Roberts. One of the things I have been interested 
in with regard to your predecessor in the Southern Command, 
General Wilhelm, who I think is an outstanding general, 
outstanding marine, is there has been a lot of debate in regard 
to our country's role in Colombia. Some insist we should 
provide only counternarcotics support to the Colombian 
Government. Others believe that the counternarcotics assistance 
is inseparable from the war against the revolutionary armed 
forces of Colombia. Some would call those terrorists. I would. 
Can you give me your views on this issue, particularly in light 
of the recent events?
    General Pace. Sir, I can. Thank you. I agree with your 
estimate of General Wilhelm. He is a great man and a great 
patriot, and I thank you for bringing him up in this hearing, 
sir.
    I believe that our current support to Colombia has been 
exactly and properly focused to support President Pastrana in 
Plan Colombia. Senator, Plan Colombia has 10 parts, one of 
which is the military; the others address health and judicial 
reform, schools, roads, and alternative development. None of 
those other parts of Plan Colombia can grow until there is 
security throughout the Nation.
    Today, the combination of the Colombian police and the 
Colombian military is not sufficient to provide security 
throughout the Nation. Our assistance to their counternarcotics 
brigade, the provision by this Congress through our State 
Department of helicopters, has, in fact, strengthened Joint 
Task Force South under Brigadier General Montoya in the 
Putamayo Province and allowed him to do a fantastic job. They 
began operations last December. In less than a year, they have 
eradicated almost 30,000 hectares. They have wiped out some 300 
labs. They are providing security where they are. But the fact 
of the matter is, if they were to move from the Putamayo 
Province to somewhere else, then the stability of that province 
would be undermined.
    I believe the proper way ahead in the current support for 
Plan Colombia is to assist the Colombian Government in building 
additional counternarcotics brigades that can do what Joint 
Task Force South has done; first, take on the counternarcotics 
problem; second, move more into a homeland security type 
organization that can provide stability so that Plan Colombia 
can ultimately be successful.
    The Revolutionary Armed Forces of Columbia (FARC) are 
terrorists. The National Liberation Army (ELN) are terrorists. 
The Autodefensas in Colombia (AUC) are terrorists. The amount 
of money in the drug trade, hundreds of millions of dollars, is 
awash throughout the world, and within at least that specific 
category, there are very healthy targets for our worldwide 
campaign against terrorism, sir.
    Senator Roberts. Basically, you are saying that when you 
are awash in money from the drug cartels, regardless of the 
region, that that money is fungible, which is precisely the 
subject that the President and others are addressing even as we 
speak.
    My time is expired, Mr. Chairman. Thank you.
    Senator Cleland. I would like to ask a couple basic 
questions. I would like to ask each of you, bringing your 
military experience to this issue, what have you learned in the 
wake of the September 11 terrorist attack's on the country? Can 
you also comment across the board about anything you have 
learned?
    How will the September 11 terrorist attacks affect your new 
role? What are some of the challenges you face?
    General Handy.
    General Handy. Thank you, Senator.
    Clearly, the events of September 11 struck a deeply 
personal blow to each of us as Americans. It has caused us all 
to have a great deal of personal reflection as individuals. 
Also, as a man with almost 35 years in the military, I have 
some deep and lingering thoughts from a professional 
perspective about what the future may portend.
    The sanctity of this Nation and the protection of its 
citizens has always been something that we hold very sacred, 
and a challenge such as this from terrorists outside this great 
Nation should cause us all to pause.
    As I look in the future, if I am confirmed as the Commander 
in Chief of United States Transportation Command, I see the 
potential for a worldwide aggressive approach to suppressing 
terrorism and eradicating these horrendous individuals, the 
stresses and strains on the U.S. transportation system, our 
airlift, sealift, and in great measure, even our internal road 
and rail networks. They have become quite a challenge. On the 
long distance support of troops abroad, our airlift resources 
come into potentially very stressful situations as we are today 
moving in that direction. General Pace mentioned our issues in 
Southern Command. There is no doubt we need to exercise our 
authorities continually in that region, as well as others 
around the world. So, as I approach this job, I will remain 
concerned and very anxious to try to work with this committee 
to highlight and solve those stressing problems in this 
business of ours.
    Senator Cleland. Thank you very much.
    General Pace. What have you learned?
    General Pace. Senator, as we all have known for the past 
decade, the United States' conventional forces are, quite 
simply, untouchable, and we would, if attacked, be attacked 
asymmetrically. We obviously have not been able to understand 
the type of attack that would occur, like it did, nor to be 
properly positioned to defeat it. But, now that it has occurred 
and we have begun to focus our attention on how to prevent it 
in the future and how to disassemble the terrorist 
organizations that spurn this, I think we have several things 
we need to do.
    We must increase our intelligence capability, whether it be 
for a combatant commander in the field like myself right now, 
or in support of organizations like the FBI and other law 
enforcement. We must have the eyes and ears both forward 
deployed and at home, to understand the environment in which we 
are working and to understand the networks against which we are 
going to proceed.
    We are also going to need an interagency approach to 
execution of the decisions made by our President. I think our 
system of Deputy Committees' meetings, Principals Committees' 
meetings, National Security Council meetings are very good at 
teeing up for the President the decisions that he makes.
    The execution side sometimes devolves back to stovepipe 
approaches so that what comes to the State Department to do, 
they do, what comes to the Department of Defense, we do, 
without enough coordination at the top to ensure that all of 
our energies are being expended wisely and in synergy. I 
believe that what we are going to need to do, and if confirmed, 
what I will strive to do as Vice Chairman, is to bring together 
the interagency here in Washington in a way that allows us to 
focus all the energies of this Nation.
    There is some part of this that is going to be kinetic. 
There will be bombs dropped. There will be things that happen 
in a purely military way. But there are enormous strengths of 
this government that will be brought to bear that are outside 
the realm of DOD. In DOD, we must understand how we can support 
a mechanism to make all the work smoothly and efficiently, sir. 
It is going to be needed.
    Senator Cleland. Senator Roberts has a comment.
    Senator Roberts. It is more of a question, and I apologize 
to Senator Hutchinson and Senator Collins and Senator Nelson.
    When something happens, we have been having hearings, what 
I call the ``oh, my God'' hearings, in the Intelligence 
Committee and on this committee as well. I am terribly 
concerned about what I consider to be, I do not know if I want 
to call it a massive failure, but certainly an unintentional 
failure of preventive analytical ability in terms of our 
intelligence capabilities. We have the technology. We have an 
amazing amount of resources. We have good people. We have 
plused up accounts on Signals Intelligence (SIGINT), on Human 
Resources Intelligence (HUMINT), and on attracting people to 
our intelligence agencies.
    But I must tell you that after Khobar Towers, after the 
U.S.S. Cole, after the Khartoum chemical plant bombing where we 
made a mistake and ended up in world court, after the failure 
of the intelligence community to detect the India nuclear test, 
and we can go on and on, something is dreadfully wrong. We are 
still continuing hearings on the Cole to get the preventive 
intelligence available, in your case, sir, to the warfighter.
    When Tommy Franks was in charge of the Central Command, it 
seemed to us on the Intelligence Committee, upon investigation, 
that there were enough red flags. As you take a look at what we 
are into now, we are at war, perhaps a warning notice could 
have been sent. Now, that is very difficult to do. It is very 
easy to criticize with 20/20 hindsight.
    But we have to do better in regards to our analytical 
ability, and I think we have too many folks there who are into 
risk aversion, who do not think out of the box, do not think 
improbably. If we are going to detect so that we can deter the 
next attack--because the same people that planned the bombing 
in regards to Khobar Towers are the same kind of people that 
did it with the Cole, the same kind of people that did it in 
Washington and New York, and the same kind of people that are 
doing it right now--and I must say that I am terribly concerned 
and frustrated.
    Every time we have hearings, we have people who sit in 
front of us and say, ``Here is what we reported, here is what 
we reported, here is what we reported.'' It is very difficult. 
It takes weeks and months to do. We have ``leap-ahead'' 
technology now to help us out in that respect. I am very 
concerned about it. If we do not do that, much of what we talk 
about here is just not going to be possible.
    I am being a little argumentative, and I apologize to my 
colleagues for making a speech.
    Do you have any comment about this in regards to force 
protection and what you are going to be about? You say that you 
are going to be the person that tries to develop a better joint 
approach to this so that all of these stovepipes and the 
cultures we have can say, ``Whoa, wait a minute.'' We have to 
step back from this, understand we are at war, and come up with 
a better plan.
    General Pace. Senator, you clearly have articulated it 
better than I could. I would simply add, based on my recent 
experience in SOUTHCOM, that human intelligence is where I see 
our biggest failing. For example, the vast majority of the 
large successes that we have had in the counternarcotics 
operations have been because we received information that 
something was going to happen at a certain time, and received 
it from a person who had knowledge from another person. It is 
that kind of information that we do not have enough of, and 
that is an area that I would recommend we focus on as we look 
to shore up our intelligence apparatus.
    Senator Roberts. Would either of the other two gentlemen, 
Admiral, General, have any comments about this, other than to 
say, ``yes, I agree?''
    General Handy. Certainly, that is an imperative. General 
Pace is absolutely right about the human intelligence problem 
today.
    But, Senator, what you point out is also the over-arching 
issue that we all face, and that is integration of all of the 
intelligence that we receive. Certainly, our intense focus must 
be on breaking down those stovepipes and continuing to pull 
this together with the technology that we know is within our 
reach. The technology is a potential solution. From an Air 
Force perspective, with my Vice Chief of Staff hat on, our 
endeavors certainly bring us some relief, potentially in the 
near term, as well as in the long term. Sharing integrated 
intelligence, especially human intelligence, is a huge leap in 
the right direction. We have certainly almost dispatched that 
capability, and we need to resurrect it and give some strength 
to it as well.
    Senator Roberts. Admiral Ellis.
    Admiral Ellis. Yes, sir. I would only add that while an 
improvement in the intelligence architecture and the automated 
tools can clearly bring us what you and my colleagues have 
described, speedier analytical capability is essential. But 
Pete is right on the mark when he talks about the critical 
utility and role of human intelligence.
    I would only add, based on my experience overseas, that we 
also have the ability to draw human intelligence from allies 
and coalition partners. They are increasingly forthcoming in 
those types of dealings, based on my experience with our Balkan 
operations, and this certainly is the case in the tremendous 
outpouring of support that we have received overseas from our 
allies since the tragic events of September 11. I would only 
add that as we think HUMINT, in addition to those capabilities 
which we need to generate ourselves, perhaps there are ways in 
which we could expand and draw more completely on those 
capabilities that already exist on the part of our allies and 
partners.
    Senator Roberts. Mr. Chairman, in the interest of my 
colleagues and their valuable time, please consider that my 
second 6 minutes, and I will cease and desist.
    Senator Cleland. Thank you very much, Senator.
    Admiral Ellis, any further lessons learned about September 
11?
    Admiral Ellis. Certainly, sir; I share the lessons that 
everyone has brought home so tragically on September 11 in the 
unexpected scope of this terrorist threat, which we know has 
been confronting us for over a decade. Clearly, we have been 
looking outward and we have worked very hard, as we have 
already articulated, to ensure the safety of our deployed 
forces and for those forces that go in harm's way. We have 
redefined the nature of that threat clearly in one single, 
heinous act on the 11th of September.
    As I mentioned earlier and alluded to in my previous 
remarks, the support that we have received from our allies has 
been absolutely tremendous, and it is right down to the 
tactical level. I have received calls from the heads of the 
Armed Forces of virtually all of the NATO allies, telegrams of 
support, offers of sympathy, and more importantly, they have 
translated that into real offers of security. Heretofore, 
issues that had been perhaps pushed back a bit by them, in the 
interest of sovereignty concerns, all of those obstacles have 
been removed and they certainly have been forthcoming.
    If confirmed as Commander of the United States Strategic 
Command, the future of what we now define as deterrence has to 
include a larger number of elements in that concept as we look 
at new threat environments and, indeed, in a real sense, new 
strategic environments in which that deterrent policy must 
serve us.
    In the meantime, based on my understanding, Strategic 
Command continues to support the Commander in Chief's (CINCs) 
worldwide in terms of intelligence information. I believe that 
the organization also would stand ready to support, in whatever 
construct is deemed appropriate, the issues that are emerging 
in terms of homeland defense. Clearly, all of us, as you have 
properly noted, are going to see a much different situation 
than we would have anticipated when initially nominated for 
these posts a few short months ago.
    Senator Cleland. Thank you all very much.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    It is a pleasure to see you again, General Pace. As the 
other Senator Nelson said, we journeyed together to Colombia. I 
appreciated very much your insight, as well as your support 
there for that mission.
    It is good to see Admiral Ellis, soon to become a 
Cornhusker. We are looking forward to having you come to 
Nebraska. I saw Admiral Mies socially on Saturday evening and 
he is very much looking forward to you succeeding him as the 
CINC at Strategic Command.
    General Handy, I look forward to working with you in the 
months and years ahead, certainly to deal with the logistics of 
moving troops quickly and safely. You have a significant role 
and a tremendous job ahead of you, as we look forward to the 
months, possibly years ahead, to deal with challenges as we 
battle against terrorism.
    My question to you all today comes from an opinion in the 
Atlanta Journal Constitution written by the former chairman of 
this committee, former Senator Sam Nunn. He tells about the 
time that the communist empire broke apart. The former Soviet 
Union left as a legacy some 30,000 nuclear warheads, more than 
1,000 tons of highly enriched uranium, 150 tons of plutonium, 
40,000 tons of chemical weapons, 4,500 tons of anthrax, and 
tens of thousands of scientists who know how to make weapons 
and missiles, but obviously do not even know how to feed their 
families.
    The fear continues to be that the former Soviet Union and 
the republics, even working the United States, have been 
unsuccessful in assuring the security of these weapons of mass 
destruction. Do we have and can we put together a plan that, in 
the midst of a war against terrorism, focuses on objects that 
could be used against the United States, against the world for 
that matter, in this battle against terrorism?
    I guess I would start with you, General Pace.
    General Pace. Senator, thank you.
    The answer to can we put together that type of an 
organization----
    Senator Ben Nelson. Or have we? I think the suggestion is 
that we have not been able to do it to date. If that is the 
case, then the question obviously becomes can we.
    General Pace. Sir, if I may constrain my answer in this 
public forum?
    Senator Ben Nelson. Yes. I think we have to keep it secure.
    General Pace. In a very general overview way, I would 
address your question by saying that there have been efforts in 
the past which are being reinforced as we speak. I believe we 
can have a proper mechanism for cooperating and sharing as much 
information as available. My personal opinion is that we 
probably can never have a foolproof system of knowing 
everything about every possible type weapon that has been 
transferred from legitimate government hands to illegitimate 
hands.
    If I may stop there in this forum, sir, I would like to.
    Senator Ben Nelson. That would be fine.
    Admiral Ellis, I know that you are going to be taking 
charge of the offensive portion of our nuclear force, and 
perhaps you have some thoughts as well.
    Admiral Ellis. Yes, sir, Senator, I would be pleased to 
share those.
    Certainly, as we discussed in the office the other day, 
those types of concerns that you have just articulated and that 
Senator Nunn articulated in the op-ed piece are shared by all 
of us. Indeed, there have been programs, as you are well aware 
that have attempted to address this in the past and have done a 
great deal in terms of addressing some of the specifics of 
that.
    How we need to reshape and reevaluate the magnitude and the 
level of those programs, in light of current situations, is 
certainly an appropriate question. The Nunn-Lugar program has 
contributed over $2.7 billion to an effort to provide technical 
advice to the Russians specifically on how to dismantle and 
enhance the security of their nuclear and strategic systems.
    There is, and there has been, a focus on the security 
element, the counterproliferation element, and the 
denuclearization of the former Soviet states, as you are well 
aware. How we need to readdress that in the light of the 
current strategic environment is certainly an appropriate 
issue.
    Senator Ben Nelson. Thank you.
    My question involves you, General Handy, as you move 
troops.
    General Handy. Senator, thank you very much.
    Recognizing the constraints that General Pace has 
mentioned, I have perhaps another thought, that it is not just 
the Defense Department that has these concerns. There are 
several other agencies of our Government that are actively 
engaged. Together, we ought to continue working the problem.
    The other point would be that I think it is well known to 
everybody that it is not just a former Soviet Republic problem. 
We must be diligent around the world for weapons of mass 
destruction and be on our guard in more than just that sector. 
Nunn-Lugar has certainly pointed us in the right direction, but 
there are other issues too that we ought to be very careful 
about.
    Senator Ben Nelson. This is not so much a question as it is 
a comment of optimism. It is encouraging that there is a 
recognition that we have to think outside the box, as we 
protect for homeland security and for our force protection, 
that we are willing to think of new ideas.
    I hope it does not get to the point, either in protecting 
against the use of these weapons against ourselves or in the 
protection of other areas, that we are unwilling to listen to 
people such as Tom Clancy, who make their living thinking 
outside the box, entertaining and thrilling us with their novel 
ideas. I hope that we, in our intelligence efforts, are willing 
to listen and bring people in who will challenge our thinking 
about security rather than simply go with the old ways. If you 
always do what you have always done, you will always get what 
you have always got. We have to move beyond that. I am 
encouraged to hear you suggesting things of this sort, and I 
appreciate it.
    My time is expired. I, too, have to return to the Senate 
floor because I have an amendment. Thank you.
    Senator Cleland. Senator Nelson, would you consider 
entering Senator Nunn's op-ed piece into our hearing record?
    Senator Ben Nelson. If there is no objection, I certainly 
would. Thank you.
    [The article of Senator Nunn follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Cleland. Thank you very much.
    Senator Hutchinson.
    Senator Hutchinson. Thank you, Mr. Chairman.
    If I might pick up on Senator Nelson's comments regarding 
our force protection and homeland security. For quite a while, 
I have expressed serious concerns about our military 
vaccination program, which has been in disarray for a number of 
years. General Pace, if I could just ask you, are the troops 
that are being deployed to the Middle East in your opinion 
receiving adequate protection against biological weapons?
    General Pace. Sir, to my knowledge, not all the troops we 
are deploying have had the opportunity to receive the 
vaccination because of the lack of vaccine. I do not know the 
specifics. I can get you who has and who has not, but I would 
be surprised if all the forces that are deploying have had the 
opportunity because it has not been available recently.
    Senator Hutchinson. Right. Of course, that is the only 
answer we can give. We know that the vaccines have not been 
available because of a disastrous program over the last several 
years.
    As I listened to Senator Roberts talk about the hearings on 
the failures of the intelligence services and how we rue our 
failure to either provide the resources or to provide the 
guidance or to make the adjustments to have properly alerted us 
to what we were facing, I fear that we are going to, in the 
years ahead, look back at the failure that we have had on our 
vaccine production program or lack thereof, and we are going to 
rue that day. We are going to rue the fact that we have not 
taken adequate steps, that we have not taken that issue 
seriously enough, and that we have not moved quickly and 
expeditiously enough. I think the implications are not just for 
force protection, but for homeland security and the threat of 
biological, terrorist attack upon the United States. Frankly, 
as I remarked to General Myers, the tragedy of New York City 
would pale in comparison to a biological weapon attack on the 
homeland or upon our forces who are inadequately protected.
    I hope that we will now begin to take this issue very 
seriously, and move toward a vaccine production facility that 
will have the backing of the United States Government and the 
assurance that those vaccines are going to be available not 
only for our military but for our public.
    General Pace, you mentioned in response to Senator Roberts' 
questions about homeland security and the role of the military 
in homeland security that there are certain lines that you 
would not feel comfortable crossing as a citizen. Can you 
expand upon that? Where is that line?
    General Pace. Sir, I think if it is properly the role of 
law enforcement agencies in this country, it should remain role 
of the law enforcement agencies in this country. If we are 
going to expand military capabilities in particular areas, I 
think we should also look to what law enforcement capabilities 
need shoring up in this country and exert or apply the proper 
resources to that.
    I would think one area that the military could assist in, 
for example, would be chemical decontamination. It would be 
very useful for our Reserve and National Guard Forces to have a 
chemical decontamination capability. That would be very useful 
inside the U.S. military structure, but would also possibly be 
very useful to support civil authorities in the homeland.
    I would not want to see U.S. troops given the authority to 
arrest citizens, for example, just to use two examples of the 
kinds of things that I think are valuable to do and things that 
would be, in my mind, threats to the Bill of Rights.
    Senator Hutchinson. Good. Thank you.
    General Pace, when do you anticipate the Quadrennial 
Defense Review (QDR) will be submitted to Congress, and will it 
take into account the new strategic realities since September 
11?
    General Pace. Sir, what I have been told in the building is 
that the Secretary of Defense intends to meet his obligation of 
sending the QDR to this building by the 30th of September. I 
have no reason to believe that is untrue.
    We all had the opportunity, as combatant commanders, to 
participate in the development of the QDR. If anything, the 
recent events have validated many of the concepts that were 
being put into the QDR. I think in a very real sense, the QDR 
already embodies the lessons that we would reinforce, sir.
    Senator Hutchinson. General Handy, let me join Chairman 
Cleland in thanking you for your support of the C-130 program. 
Does the active duty Air Force currently have any of the C-
130Js?
    General Handy. Not yet, Senator.
    Senator Hutchinson. It was a leading question. Go ahead.
    General Handy. As we have discussed many times, our current 
plan for the C-130J beddown started with the hurricane hunters 
at Keesler, Mississippi and has continued to respond to some of 
the oldest aircraft that the Air National Guard has. We 
currently have plans to introduce the ``J'' appropriately 
through active duty units by targeting the schoolhouse for the 
C-130, as well as the oldest aircraft in our fleet at Pope and 
Ramstein. Those plans are on target, and with your tremendous 
support on this committee, we look forward to executing it.
    Senator Hutchinson. Thank you for that. It has come to my 
attention that the active duty C-130 fleet is significantly 
older than the Reserve and National Guard.
    General Handy. Absolutely. Just anecdotally, several of the 
aircraft I flew in my checkout and initial program in 1968, I 
still fly. Aircraft I flew in 1970 in Vietnam that supported me 
well then as a pilot, we are still flying at Pope and Ramstein. 
So, that is a vote for an incredible airplane. It also says, no 
sort of dagger at my own personal age in the cockpit, but these 
are old airplanes, Senator, and we certainly, as you well 
appreciate, need to replace them.
    Senator Hutchinson. Thank you, General Handy. My time is 
up. Thank you, Mr. Chairman.
    Senator Akaka [presiding]. Thank you very much.
    At this time I would like to call on Senator Collins.
    Senator Warner. I wonder if the Senator would be kind 
enough to yield to me because I am on the floor managing the 
bill, and I have a very strong need to get back right away.
    Senator Collins. I would be happy to.
    Senator Warner. Would that be agreeable?
    Senator Akaka. Senator Warner.
    Senator Warner. I will not take but a minute.
    General Pace, as one who wore marine green with great 
humility many years ago, I cannot tell you the pride that I 
take in seeing our President recognize you first as an 
individual and then, of course, as the first marine in the 
history of the United States to serve in this high a position. 
It is a great recognition of your own career.
    As I remarked to you yesterday when we spoke together in my 
office, General Jones undoubtedly laid the path to this 
appointment and you recognize that. He was under serious 
consideration himself for the top slot, and then at his own 
initiative he withdrew because of his loyalty and the 
longstanding tradition of commandants of the Marine Corps: when 
they get their assignment by the Commander in Chief they serve 
out their terms.
    The combination of these factors led to your appointment, 
and you are eminently qualified to take on this heavy 
responsibility at this very critical time in the history of our 
Nation. I thank you and I thank your family for also 
volunteering to stand by your side in the years to come.
    General Pace. Thank you, sir.
    Senator Warner. Admiral Ellis, you and I have known each 
other for many years, and again the President has recognized 
excellence within the ranks to take on this responsibility. As 
you and I visited yesterday, we shared our views on the need 
for you to review the work done by your predecessor, 
particularly his ability to, from time to time, communicate to 
Congress, both in hearings and in private sessions with Members 
of Congress, the complexity of our strategic posture and the 
need for the utmost care as the President arrives at decisions 
predicated on the recommendations of people in your position, 
as well as the Chairman of the Joint Staff, and others.
    I wish you well in this task because it will be an integral 
part of our future relationships primarily with Russia. You and 
I know full well of the need to move forward in this area for 
both nations. I wish you luck, together with your family.
    Admiral Ellis. Thank you very much, Senator.
    Senator Warner. General, when we visited yesterday you said 
you have some of the oldest inventory and some of the newest 
inventory, and somehow you have to bridge the gap between the 
old and the new aircraft and press on with future acquisition 
of the C-17, as well as the J model of the C-130. You also have 
to keep up the morale of your brave aviators, as they fly some 
of those machines which are older than they are in some 
instances. Am I not correct on that?
    General Handy. Yes.
    Senator Warner. But the B-52 fellows laid down that 
tradition and established it well, and I am sure your pilots 
and air crew will do the same.
    I am interested, though, in this program by which there 
could be private sector participation in another acquisition of 
C-17s. Would you basically outline the program that we 
discussed yesterday, and address the procedural aspects as the 
Department of the Air Force looks at that program?
    General Handy. Thank you, Senator.
    Senator Warner. It is the one that General Cassidy, one of 
your predecessors, has worked on for some period of time.
    General Handy. We currently have a proposal. There is a 
Request for Proposal (RFP) out to industry now to approach, 
primarily, the potentially large or even small package carriers 
to acquire the C-17, up to 10, to introduce as a commercial 
variant of the C-17 that, in times of crisis or need, could be 
put in service of the United States Air Force and the Services 
who need that lift capability.
    Senator Warner. In other words, recalled from the private 
sector and taken into the active Air Force rolls. Is that 
correct?
    General Handy. That is correct. The advantage, of course, 
is that the Air Force gets the lift that they produce without 
the cost of having acquired the entire airframe, and it is a 
combination of an underwritten purchase agreement. Those 
bidders for that business, supported by the United States Air 
Force, but primarily by their own dollars out of their pockets.
    As we develop this proposal, as we communicate with 
industry, we are excited about that. It is something that 
currently the Air Mobility Command and the United States 
Transportation Command and the Air Force are watching very 
carefully. It will take as we discussed yesterday, the strong, 
continued support of this committee as we march forward.
    Senator Warner. It is sort of a first cousin to the Civil 
Reserve Air Fleet (CRAF) program, which we have had for many 
years whereby the private sector incorporates in the 
construction of certain of their passenger aircraft features 
which then, in the event those aircraft are required for 
military use, are there in the airframes. This is somewhat 
different, but the concept is the same, bringing aircraft from 
the private sector back into active duty, somewhat like a 
Reserves and National Guard call-up.
    The issue that I think requires very careful scrutiny is 
the private sector undertaking this heavy lift capacity offer 
at a time when the projected business is not as firm as we 
would like to see it. Consequently, they would require, I 
think, some backup by the Federal Government should there come 
a time they need it after an honest effort to make this program 
work. I am not suggesting it will not work. But any financial 
planner has to be cautious, particularly the private sector 
that has to protect their stockholders and lenders. Then, if it 
does not work, there is a system by which these planes can be 
brought into the Department of the Air Force and that Congress 
can authorize and appropriate the necessary funds to acquire 
them from the private sector.
    That is an area which I understand you are looking at now, 
and eventually some proposal, hopefully, will come before 
Congress. Am I correct?
    General Handy. Yes, sir. The current analysis clearly 
demonstrates that this is a viable option for industry, so it 
is very appealing to a wide range of potential bidders out 
there today. But as you point out very accurately, we are 
concerned about the long-term impact honestly brought on by the 
September 11 terrorist attacks. There are some insurance 
concerns, some liability concerns, that complicate this 
relationship. We will have to play out in time and be very 
careful about where we proceed.
    Senator Warner. I intend to work with you and other 
colleagues here in the Senate, and hopefully we can make it 
happen.
    I thank the chairman. I thank my colleagues.
    I shall support each of you. My welcome to your family too, 
General Handy. I would like to submit my opening statement for 
the record.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Welcome, General Pace, Admiral Ellis, and General Handy, and 
congratulations on your nominations.
    The world has changed dramatically since you were nominated by the 
President for these high positions. The importance of these key 
positions and the grave responsibilities of the individuals placed in 
these commands have only intensified since September 11. If you are 
confirmed, as I fully expect, we will look to you for innovative 
leadership in the difficult and challenging years ahead.
    On September 13, only 2 days after the terrorist attacks on the 
World Trade Center and the Pentagon, we conducted the nomination 
hearing for General Myers, and the Senate quickly confirmed him as the 
next Chairman of the Joint chiefs. It was imperative then--and it 
remains so today--that we demonstrate our resolve and our commitment to 
meet the new challenges we face by facilitating these nominations in 
order to provide the Secretary of Defense the strong, determined 
military leaders he needs to fight this war on terrorism. I thank the 
Chairman for scheduling this hearing so promptly.
    General Pace is no stranger to this committee. If confirmed, he 
will be the first marine to serve in the capacity of Vice Chairman, a 
milestone all marines, past and present, can be proud of. In his 
present capacity, as Commander in Chief, United States Southern 
Command, General Pace has confronted firsthand the corrosive effects of 
terrorism. There are numerous, difficult challenges facing our friends 
and allies in the United States Southern Command region, and I commend 
General Pace on his service in that area of operations. His many 
leadership accomplishments, in numerous joint billets worldwide and 
with combat marines, will serve him well as the Vice Chairman of the 
Joint Chiefs of Staff.
    Admiral Ellis is also well known to this committee. He has had a 
most distinguished career as a naval aviator. He performed superbly as 
NATO Joint Force Commander for Operation Allied Force, exercising 
operational command of U.S. and allied forces involved in Kosovo combat 
and humanitarian operations. He served admirably as Deputy Chief of 
Naval Operations for Plans and Policy. He is nuclear-trained officer 
with extensive command experience.
    General Handy, as Vice Chief of Staff for the Air Force, has played 
a key senior leadership role, directing the Air Staff and serving on 
the Joint Requirements Oversight Council. He has had extensive 
experience in the U.S. Transportation Command, serving as director of 
operations and logistics. He is a command pilot with more than 4,800 
flying hours, primarily in airlift aircraft. He, and all our witnesses, 
are eminently well-qualified for the positions to which they have been 
nominated.
    Gentlemen, you have my support. I applaud your willingness to 
serve, and I look forward to working with you.

    Senator Akaka. Thank you very much, Senator Warner.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Gentlemen, I want 
to congratulate you on your appointments and thank you for your 
service to our great Nation. I look forward to supporting each 
of your confirmations.
    General Handy, at my request the General Accounting Office 
(GAO) has been working for many months with my staff at the 
Permanent Subcommittee on Investigations of the Senate 
Governmental Affairs Committee on a project relating to the 
security of a certain type of facility that falls under the 
authority of the Transportation Command.
    Now, in light of recent events, TRANSCOM has deemed it 
necessary to classify what were previously unclassified results 
of the investigation. In fact, we had been scheduled to release 
the two reports with the GAO on September 13. Due to the 
classification of the reports, I cannot discuss the details 
now, but I will say that we found some very serious security 
problems with these facilities. The problems would make these 
facilities dangerously vulnerable to terrorists. In short, the 
sites that we examined are terribly insecure and vulnerable to 
unauthorized access by criminals or by terrorists.
    After we discovered the problems, I immediately telephoned 
Deputy Secretary Wolfowitz, this was back in May, to alert him 
to the problems and to urge the Department to move quickly to 
correct these very serious deficiencies. As a result of my call 
and his intervention, some steps have, indeed, been taken to 
improve security at the facilities in question. In my view, 
however, and in the judgment of the GAO, much more needs to be 
done, especially in light of the terrorist threat that we face.
    My first question to you is, are you familiar, and I 
realize I am talking sort of in code here, with the findings 
and the recommendations of my subcommittee's investigation with 
the GAO? If you are not, I would request that my staff brief 
you very soon about what we found.
    Second, can I count on your commitment to take these very 
serious security lapses seriously and to resolve completely all 
the problems that we identified?
    General Handy. Thank you very much, Senator.
    Let me assure you that I am familiar with the report and 
have read it. I agree entirely with every word that you have 
said. I know that our folks that are out in TRANSCOM, as well 
as the commander himself, are aggressively pursuing solutions 
to those problems. I assure you that I will be very eager to 
work with you and your staff, if I am confirmed in this 
position, to eliminate every potential problem that we have 
seen articulated in that report. I will be very anxious to talk 
with you about it.
    Senator Collins. Thank you. I look forward to working with 
you very soon, to make sure that all the steps that need to be 
taken, are. Thank you for that commitment.
    General Pace, last week when I was in Maine, I discussed 
the role of the National Guard with General Tinkham, who is the 
head of the Maine National Guard. We talked about expanding the 
role of the National Guard and our Reservists in homeland 
security. Could you comment on the critical role of our 
National Guard and Reserve Forces in the defense of our 
homeland, and in particular, do you see them playing an 
expanding role in combatting asymmetric attacks on our Nation, 
such as we experienced on September 11?
    General Pace. Yes, Senator. Thank you. I specifically 
endorse the concept that our Reserves and our National Guard 
have a great deal to offer our Nation for homeland security and 
support to civil authority in that endeavor, everything from 
the heavy lift capability that they have, to the ability to 
provide security, communications, and intelligence. There are 
many ways in which the U.S. military in the form of the 
National Guard and the Reserves can, in fact, play a key and 
essential support role to the lead law enforcement agency or 
lead agency of the Federal Government. I would look for them to 
expand that opportunity.
    Senator Collins. As General Tinkham pointed out to me, they 
are already forward deployed, which is a major advantage to 
their being able to assist in beefing up our homeland defenses.
    General Pace. Yes, ma'am. Just before you were able to join 
the committee today, we had a previous discussion on that, and, 
in fact, that exact point was brought out.
    Senator Collins. Thank you very much. Thank you, Mr. 
Chairman, and I want to thank my colleague from Louisiana as 
well.
    Senator Akaka. Thank you very much, Senator Collins.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. I apologize. I 
had another committee meeting and had responsibilities on the 
floor. I know that there have been some excellent statements 
submitted for the record and excellent questions asked. My 
staff has been able to brief me on those in a shorthanded way.
    Let me say I have a statement for the record that I would 
like to submit. I would also like to make a few statements and 
then I ask one or two questions.
    I guess it goes without saying, gentlemen, that our 
military is in a state of transition and transformation. With 
the tragic events of last week, these transitions hopefully 
will become more dynamic, and the urgency in which we address 
them will be more clear. I want to say what you already know, 
that our traditional notions of warfighting are being, and must 
be, reconsidered, that our Armed Services must have the vision 
and wherewithal to adapt to a new paradigm of warfighting. I 
chair the Emerging Threats and Capabilities Subcommittee, and 
unfortunately, these threats have emerged and are emerging and 
developing before our eyes, and they will continue to pose 
great obstacles to peace and freedom throughout the world. No 
longer is it a time to be anchored to the way things used to be 
done.
    As I have reviewed each of your backgrounds in preparation 
for this hearing, I am confident that each one of you has the 
ability, the intelligence, background, experience, and vision 
to lead us at an extraordinary time like this. You will have my 
full support and my vote in your confirmations, and I look 
forward to working with all of you as we overcome the 
tremendous challenges of this new century.
    I know you are aware of this, but 260 million-plus 
Americans count on your good work every day, and the quality of 
life of millions if not billions of people around the world, 
will be dependent on the decisions you will make in the months 
and years to come. You most certainly have my support.
    Mr. Chairman, without objection, I would like the rest of 
my statement submitted for the record.
    Senator Akaka. Without objection, it will be included in 
the record.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    Thank you, Mr. Chairman, it goes without saying that our military 
is in a state of transition and transformation. The tragic events of 
September 11 will, unfortunately, but necessarily so, speed up the 
transformation. Our traditional notions of warfighting must be 
reconsidered, and our armed services must have the vision and where 
with all to adapt to a new paradigm of warfighting. Emerging threats 
have emerged, and they will only continue to pose an obstacle to peace 
and freedom around the world. No longer is it a time to be anchored to 
the way things used to be done. I am confident that you gentleman 
before us today have the vision to use your new roles of leadership to 
innovate and create an armed forces that can successfully overcome the 
new challenges of the 21st century. Two hundred and eighty-five million 
Americans and millions of people around the world depend on you.
    General Pace, it certainly has taken too long for a marine to rise 
to such prominence on the Joint Chiefs of Staff. As we enter this new 
era in military strategy and war fighting, I am hopeful that the hard 
nosed marine work ethic and the innate ability for marines to think 
intelligently and react quickly will positively affect the hearts and 
minds of all those on the Joint Chiefs of Staff. I am also excited that 
you have an M.B.A. The Pentagon is not run like a business. Rather, all 
too often, the deliberation of procurement, research and development, 
and readiness issues move through the department of defense at a 
snail's pace. I am hopeful you can use your business acumen as Vice 
Chairman to improve the efficiency along your chain of command.
    Admiral Ellis, your track record is impeccable. You have served as 
both a ship captain and fighter pilot. Your background in nuclear 
engineering can only serve as an asset as Commander in Chief of the 
U.S. Strategic Command. Deterrence is a critical issue in the 21st 
century. Moreover, I am confident you will capably oversee the nuclear 
triad and its deterrence capabilities while working with the Russians 
to reduce their nuclear stockpiles. The reduction of Russia's nuclear 
stockpiles is an issue of great importance to me, and I look forward to 
talking with you today and at a later date on this matter.
    I also look forward to working with you both in my role Chair of 
the Emerging Threats Subcommittee and as a Senator from Louisiana, home 
to Barksdale Air Force Base and the B-52s that are so crucial to 
STRATCOM.
    What I truly want to know is how a Navy man with such a 
distinguished career and so many tours at sea will get used to 
defending the shores of Nebraska?
    General Handy, you have performed admirably as an airlift pilot 
during times of war, and you have served the Air Force well during your 
time as Vice Chief of Staff. Nevertheless, the importance of 
Transportation Command today is as great or greater than it has ever 
been.
    TRANSCOM's importance will only continue to grow in the coming 
years. As you have stated, TRANSCOM is tasked to (a) get our 
warfighters to the fight, (b) sustain the warfighter during the fight, 
and (c) bring the warfighter home after the fight. TRANSCOM is 
displaying its reason for being as we speak, as it delivers service men 
and women to desolate far reaches across the globe. Under your 
guidance, I am confident TRANSCOM will accomplish its three objectives.
    As Chairwoman of the Subcommittee on Emerging Threats and 
Capabilities, I look forward to working with all of you as we address 
new challenges and work to overcome them. Thank you.

    Senator Landrieu. Thank you.
    I just have three questions at this time. General Pace, the 
North American Aerospace Defense Command is conducting the 
operation designed to keep hijacked aircraft from being used as 
terrorist missiles currently in the United States. Meanwhile, 
Joint Force Command has the responsibility through the Joint 
Task Force-Civil Support to provide military assistance to 
civil authorities for the consequence management of weapons of 
mass destruction.
    Does that mean that the defense of the U.S. homeland is 
assigned to several commands, or are some aspects of homeland 
defense not assigned at all? This is one of the issues that 
Congress is grappling with with the administration to try to 
stand up the kind of operations that we need to. Could you just 
comment specifically on the record about that and share any 
thoughts you might have with us?
    General Pace. Yes, Senator. Right now, the defense of the 
United States is shared amongst commands. North American 
Aerospace Defense Command (NORAD) certainly has the defense 
responsibilities that you have already mentioned, and Joint 
Forces Command in Norfolk, Virginia, with their Joint Task 
Force-Civil Support, has the response to chemical, biological, 
radiological, and high explosive events to support civil 
authorities.
    It was a part of the Quadrennial Defense Review plan for 
the way ahead was to determine how best to provide for the 
security of the United States. That, of course, now has been 
put on a significantly reduced time line, but that is an item 
of interest and importance to those in the leadership right 
now.
    I am aware of the need to do that. I am aware of my fellow 
combatant commanders saying we should do that. I have not yet 
had any briefings on where we might be, because I currently 
have my responsibility for SOUTHCOM. But I do know that is a 
proper and important function to have efficiently conducted for 
the United States.
    Again, I would simply state that one of my concerns would 
be, as we provide what the U.S. military can provide for the 
defense of the United States, that we do so with absolute 
respect for the Bill of Rights.
    Senator Landrieu. Thank you.
    Let me just follow up with your role in SOUTHCOM. I 
understand that Senator Roberts, the ranking member on Emerging 
Threats and Capabilities Subcommittee, had asked you this 
question, but Plan Colombia has been of interest to us both, 
particularly in light of this new emerged threat. I know that 
you have gone on record explaining or giving your views about 
the situation, but could you just take this moment to either 
add to those thoughts for the record, thoughts that you did not 
get out on that particular question? Basically should we be 
aware of something more in light of what has happened? What are 
our plans of intercepting planes right now, given the pulling 
of assets to other areas?
    General Pace. If I may take those in inverse order, 
Senator. The Colombian military, the embassy led by Ambassador 
Ann Patterson, and myself, all are prepared for and support 
resumption of providing the Colombian military the intelligence 
support they need so that they can vector to their own aircraft 
to intercept airplanes.
    There are several parts of the two investigations that were 
done by our own State Department folks and there are a couple 
of checks that still need to be put in the block, but we have a 
U.S. military/U.S. State Department agreement and we are 
prepared to resume that data flow. There is much that we can do 
through our radar system without having the additional input of 
some of the airframes that we would like to have, but they are 
not absolutely critical to the information flow.
    To answer your second question, with regard to the money, 
the hundreds of millions of dollars that are available to the 
terrorist organizations, the FARC, the ELN, and the AUC, all of 
those organizations, although not directly linked, that we know 
of, to Al-Qaeda and the attacks of September 11, the enormous 
amount of money awash in the international terrorist community 
needs to be addressed. My recommendation would be that we find 
a way to suck that money out of the international arena. It 
would help us both in what we are trying to do for global 
terrorism and in what we are trying to do to support President 
Pastrana in Plan Colombia.
    Senator Landrieu. I hear what you are saying, but the 
difficulty of actually accomplishing that is quite complicated. 
Even today, the President is announcing the suggestion of 
freezing 37 specific accounts. That number might have gone up 
since this morning. While freezing assets is an important 
deterrent, it gets to be quite difficult in the way this money 
is moving through the system.
    I thank you for going on record because I think you have 
made an excellent point.
    My time has expired, Mr. Chairman, and I have another 
committee hearing to attend. I thank you very much. Gentlemen, 
you have my full support.
    Senator Akaka. Thank you very much, Senator Landrieu.
    I want to welcome you even at this late time to this 
meeting and especially welcome your families who are here and 
who have supported you. As my wife says, she made me what I am, 
and I am sure your families have done the same. We welcome you 
here and know that you made a big difference in the rise of 
those who have been nominated. I want to also congratulate you 
for being nominated to the positions to be confirmed.
    You know that you come at a time when our Nation is under a 
huge burden of continuing to keep, not only our country, but 
also the rest of the world, secure. You, and all of us, have a 
tough job to do that. With that, you are up for confirmation, 
and I want to wish you well.
    I have read the answers to the advance policy questions and 
was pleased to see that all of you placed emphasis on the 
necessity of working together or bringing about a cohesive team 
to accomplish your mission not only within the military, but 
with other agencies, as well as with communities that support 
the military's activities.
    I would like to ask General Handy just one question. I am 
interested in your assessment of the Full Service Moving 
Project (FSMP) pilot program. You indicated in your advance 
answers that the military services decided to cease 
participation in the FSMP at the end of fiscal year 2001 and 
that USTRANSCOM is going to make an assessment between the FSMP 
pilot program, the Navy sailor arranged move pilot program, and 
the Military Traffic Management Command's (MTMC) pilot program.
    Understanding that the FSMP pilot began in January 2001, is 
there going to be enough data for a fair assessment of this 
program?
    General Handy. Senator, thank you very much. I can directly 
answer from an Air Force perspective as the Vice Chief that it 
is in fact true, as indicated in my advanced remarks. All the 
services will cease their funding for the full service movement 
program as it currently exists in test at the end of this 
month.
    One reason for that was the exponential rise in cost within 
the program lacking a commensurate rise in quality of service 
to the families involved in those moves. It became very clear 
that we, in fact, do have a considerable amount of data to 
support that conclusion.
    We will then take the good portions of the data, the good 
feedback, and develop programs over the near term to try to 
ensure that when we move family members and the military person 
as well, that we are doing that with the care and concern that 
we owe them. This particular project was just not returning 
quality on the investment.
    Senator Akaka. Thank you very much.
    Admiral Ellis, I am pleased to see your support for the 
National Nuclear Security Administration and its plan to 
modernize many aspects of the nuclear weapons manufacturing 
complex. If confirmed, what actions will you take to ensure 
that the U.S. nuclear stockpile remains safe, secure, and 
reliable?
    Admiral Ellis. Thank you, Senator.
    As you know from the answers to the questions that I 
submitted, that is certainly my top priority both in my role as 
CINCSTRAT, if confirmed to that position, and in support of 
General Gordon in his efforts in the National Nuclear Security 
Administration.
    Clearly, the proper resourcing of NNSA in its roles is 
essential, and I thank you, other members of this committee, 
and our Congress for that support. It is critical that we 
continue to resource them at the level that is appropriate so 
that they can then deliver on the commitment that they have to 
the Nation to certify the continued reliability of that 
strategic stockpile.
    My personal commitments are to be involved personally in 
meeting with General Gordon to familiarize myself, if 
confirmed, with all of the agencies that have direct oversight 
on this critical responsibility; to personally visit the 
laboratories and the infrastructure facilities that are such an 
important element of this so that I more fully understand the 
challenges that are confronting NNSA in their august 
responsibilities; and to appropriately exercise the roles that 
have been established for CINCSTRAT in assessing the continued 
safety and reliability of our nuclear stockpile.
    Senator Akaka. Thank you for those responses.
    General Pace, with respect to the training range located in 
Vieques, are you aware of any suitable alternatives that would 
satisfy the current training capability for the Navy and Marine 
Corps?
    General Pace. Senator, I participated in a long analysis of 
alternate training sites. Admiral Fox Fallon and I were not 
able to find another location in the Atlantic or in the Gulf of 
Mexico that provided the air, land, and sea space to conduct 
the full range of operations that we are able to do in Vieques. 
My short answer to your question is, no, sir.
    Senator Akaka. Given the Secretary of Navy's announcement 
that training on Vieques will cease in fiscal year 2003 and the 
fact that there is no suitable alternative training range, as 
you have mentioned, do you have any thoughts regarding 
appropriate actions to take to maintain the readiness of the 
Navy and Marine Corps units which utilize the training range at 
Vieques?
    General Pace. Sir, my recommendation to the Navy and the 
Marine leadership will be that they continue to use the other 
facilities that are available to them to hone the skills as 
best they can. If I can use a football analogy, they will still 
be able to block, they will still be able to tackle, they will 
still be able to throw passes and catch them at various ranges; 
they will be able to perfect those skills. But without Vieques, 
they will not be able to scrimmage and they will not be able to 
pull all of the elements together at one time, sir.
    Senator Akaka. I thank you for that. We will be discussing 
this, or we are doing it right now on the floor of the Senate. 
I thank you very much for your responses.
    I have no further questions, and there are no other 
Senators to ask questions here. Again, I want to thank you so 
much for your responses to all of our questions. I want to 
congratulate you for your nomination and wish you well in your 
confirmation. To your families, I want to wish them well as 
they support you.
    There being no further questions, this meeting stands 
adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]

    [Prepared questions submitted to Gen. Peter Pace, USMC, by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                         Department of Defense,    
                    United States Southern Command,
                          Office of the Commander in Chief,
                                   Miami, FL, September 21, 2001.  
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: As requested, my responses to the questions of 
your 12 September 2001 letter are attached.
    It is my distinct honor to receive the President's nomination to be 
Vice Chairman of the Joint Chiefs of Staff. I am humbled by the 
opportunity to continue to serve our Nation, and the magnificent men 
and women of our Armed Forces.
            Sincerely,
                                               Peter Pace, 
                                        General, U.S. Marine Corps.
Enclosure.
cc: Senator John Warner.
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you last testified on this matter?
    Answer. No.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the national security strategy? If so, what areas do you 
believe it might be appropriate to address in these possible 
modifications?
    Answer. I do not see the need for any additional modifications at 
this time.
    Question. Based upon your experience as Commander in Chief, U.S. 
Southern Command and Director for Operations (J-3) of the Joint Staff, 
do you believe that the roles of the combatant commanders and the Vice 
Chairman of the Joint Chiefs of Staff under the Goldwater-Nichols 
legislation are appropriate and that the policies and procedures in 
existence allow those roles to be fulfilled?
    Answer. Yes. In addition to strengthening civilian control over the 
Armed Forces, it also gives the various unified combatant commanders 
clear responsibility and authority for accomplishing their respective 
missions. Command and control of joint forces from the National Command 
Authorities through the combatant commander has eliminated much of the 
confusion and competing command and service influences that existed in 
the pre-Goldwater-Nichols era.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Vice Chairman of the Joint Chiefs of Staff?
    Answer. Section 154(c), Title 10, U.S. Code, states that the Vice 
Chairman performs the duties prescribed for him as a member of the 
Joint Chiefs of Staff, as well as those duties prescribed by the 
Chairman, with the approval of the Secretary of Defense.
    Currently, in addition to the duties as a member of the Joint 
Chiefs of Staff, the Chairman has assigned the Vice Chairman to act as 
the Chairman of the Joint Requirements Oversight Council (JROC), and as 
his representative to the National Security Council Deputies Committee. 
Further, the Vice Chairman has been charged with responsibility to stay 
abreast of on-going operations and policy deliberations, so that he is 
able to provide appropriate military advice to the President, the 
Secretary of Defense, and the National Security Council in the 
Chairman's absence. Although it will be within the Chairman's judgement 
as to which of these duties I will exercise as Vice Chairman, if I am 
confirmed, I have no reason to anticipate significant changes.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. From my first command as a platoon leader in Vietnam to my 
current position as Commander in Chief, United States Southern Command, 
I have served in command and staff duties that have given me a global 
perspective and understanding on how our own government functions and a 
keen appreciation of how fortunate we are to be citizens of the United 
States. These insights and practical experience will serve me well if 
confirmed as the Vice Chairman.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of Vice Chairman of the 
Joint Chiefs of Staff?
    Answer. My background and experience have prepared me to assume the 
Vice Chairmanship of the Joint Chiefs of Staff. That said, it will be 
important for me to listen to the advice of those around me and to do 
my homework on each issue and challenge I will face.
                             relationships
    Question. Section 162(b) of Title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Other sections of law and traditional practice, however, establish 
important relationships outside the chain of command.
    Please describe your understanding of the relationship of the Vice 
Chairman of the Joint Chiefs of Staff to the following officials:
    The Secretary of Defense.
    Answer. As a member of the Joint Chiefs of Staff, the Vice Chairman 
performs the duties prescribed for him and other such duties as may be 
prescribed by the Chairman with the approval of the Secretary of 
Defense.
    Additionally, in the absence or disability of the Chairman, the 
Vice Chairman acts as the Chairman and performs the duties of the 
Chairman until a successor is appointed or until the absence or 
disability ceasesd. These duties include serving as the principal 
military adviser to the NCA.
    As a member of the Joint Chiefs of Staff, the Vice Chairman may 
submit advice or opinions to the Chairman in disagreement with, or in 
addition to, the advice presented by the Chairman to the President, the 
National Security Council or the Secretary of Defense. The Chairman 
submits such opinion or advice at the same time he delivers his own, to 
the President, the National Security Council, or the Secretary of 
Defense.
    The Vice Chairman, as a member of the Joint Chiefs of Staff, may 
also individually or collectively, in his capacity as a military 
adviser, provide the Secretary of Defense advice upon the Secretary's 
request.
    Question. The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
is delegated full power and authority to act for the Secretary of 
Defense on any matters concerning which the Secretary is authorized to 
act. As such, the relationship of the Vice Chairman with the Deputy 
Secretary is similar to that with the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary regarding matters related to 
their functional areas. Within their areas, Under Secretaries exercise 
policy and oversight functions. In discharging their responsibilities, 
the Under Secretaries may issue instructions and directive-type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. They 
may also obtain reports and information necessary to carry out all 
their functions. In carrying out their responsibilities, communications 
from the Under Secretaries are transmitted through the Chairman of the 
Joint Chiefs of Staff.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for C\3\I, Public Affairs, Legislative Affairs, and Intelligence 
Oversight, all Assistant Secretaries of Defense are subordinate to one 
of the Under Secretaries of Defense. In carrying out their 
responsibilities, as with Under Secretaries, communications from the 
Assistant Secretaries are transmitted through the Chairman of the Joint 
Chiefs of Staff.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties prescribed for him as 
a member of the Joint Chiefs of Staff and such other duties as may be 
prescribed by the Chairman with the approval of the Secretary of 
Defense. When there is a vacancy in the office of Chairman or in the 
absence or disability of the Chairman, the Vice Chairman acts as 
Chairman and performs the duties of the Chairman until a successor is 
appointed or the absence or disability ceases.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, United States Code, Section 165 provides that, 
subject to the authority, direction and control of the Secretary of 
Defense, and subject to the authority of the combatant commanders, the 
Secretaries of Military Departments are responsible for administration 
and support of forces that are assigned to unified and specified 
commands. The Chairman or Vice Chairman when directed or when acting as 
the Chairman, advises the Secretary of Defense on the extent to which 
program recommendations and budget proposals of the Military 
Departments conform with priorities in strategic plans and with the 
priorities established for requirements of the combatant commands.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. They 
have two significant roles. First and foremost, they are responsible 
for the organization, training, and equipping of their respective 
Service. Without the full support and cooperation of the Service 
Chiefs, no CINC can ensure the preparedness of his assigned forces for 
missions directed by the NCA. As advisors to the Chairman and the NCA 
and as the senior uniformed leaders of their respective Services, the 
Service Chiefs play a critically important role in shaping and 
transforming their Services' force structure and capabilities. If 
confirmed, I will work closely with the Service Chiefs and their Vice 
Chiefs to fulfill warfighting requirements.
    Question. The Combatant Commanders.
    Answer. The combatant commanders are the warfighters. By law and to 
the extent directed by the Secretary of Defense, the Chairman serves as 
spokesman for the Combatant commanders and is charged with overseeing 
their activities. He provides a vital linkage between the Combatant 
commanders and other elements of the Department of Defense. When the 
Vice Chairman is performing the Chairman's duties in the latter's 
absence, Combatant Commanders' relationships are as if the Vice were 
the Chairman.
              joint requirements oversight council (jroc)
    Question. As a combatant commander, you have been the user of the 
equipment, systems and systems of systems that have been provided by 
the Services to the operating forces. Over the years, there have been a 
number of after-action reports that have documented the lack of 
interoperability and jointness of equipment and systems. In the past 
year, the JROC has shifted its focus to a more strategic level so as to 
make sure that the systems coming along are, as General Myers put it in 
his testimony before the committee, ``born joint.'' If confirmed, you 
will be the Chairman of the JROC.
    Question. Based on your operational experience, particularly as 
Commander in Chief, U.S. Southern Command, do you support this shift in 
focus?
    Answer. Yes.
    Question. What role, if any, do you see for the combatant 
commanders in the JROC process?
    Answer. The fundamental changes made to the JROC process, starting 
16 months ago, have as their central focus and goal to advance joint 
warfighting and give future joint force commanders the capabilities 
they will need to decisively defeat future threats. To this end, the 
JROC embarked on developing future operational concepts and 
corresponding architectures that will drive future weapon system 
requirements as well as crucial changes to doctrine, organization, 
personnel and other non-material solutions.
    In chartering the Joint Warfighting Capability Assessment (JWCA) 
teams to lead the development of these operational concepts and 
architectures, the JROC is ensuring that our combatant commanders have 
an active and visible role in developing and validating those concepts. 
The JROC has clearly recognized that the involvement of the combatant 
commanders in developing future requirements is central to delivering 
the interoperable joint systems and overall capability our warfighters 
need and deserve. The same holds true for the ability of the combatant 
commanders to influence and gain the JROC's support to deal with more 
immediate priorities as they continue to work closely with the JROC 
during the Planning, Programming, and Budgeting System (PPBS) decision 
cycles.
    Question. What is your vision for both the role and relevancy of 
the JROC?
    Answer. Since the Defense Reorganization Act of 1986, the JROC has 
fulfilled a multifaceted role which includes overseeing military 
requirements generation, defense acquisition programs, and formulating 
the Chairman's programmatic advice and alternative program 
recommendations. Early in 2000, the Chairman initiated efforts to 
strengthen the JROC's strategic focus. These efforts represent a 
fundamental shift in how the JROC does business, and are anchored on: 
enhancing the JROC's influence of requirements integration through the 
development of operational concepts and architectures; integrating US 
Joint Forces Command joint experimentation efforts into the JROC 
process; and shifting the JROC's focus to future joint warfighting 
requirements while still addressing current CINC priorities.
    Key to the JROC's strategic focus is the development of operational 
concepts and architectures that establish up-front interoperability and 
integration standards. This represents the cornerstone of the JROC's 
crucial role in transforming the future joint force. In his recent 
report to Congress on the status of the JROC evolution, General Shelton 
outlined numerous examples and actions that demonstrate the JROC's 
progress in accomplishing each of these goals.
    Question. What changes in its organization, if any, would you 
recommend?
    Answer. I would not recommend any further organizational changes at 
this time.
                   role of u.s. joint forces command
    Question. U.S. Joint Forces Command (USJFCOM) has been assigned the 
complementary missions of being the chief advocate for jointness and 
interoperability, being the DOD executive agent for joint concept 
development and experimentation, and playing a role in the joint 
requirements process. Those are similar to the functions given to the 
Chairman/Vice Chairman of the Joint Chiefs of Staff by law and 
regulation.
    If confirmed, how would you envision working with the Commander in 
Chief, USJFCOM, and what role would you expect that individual to play 
in the JROC process?
    Answer. For the last 18 months, the Chairman, Vice Chairman, 
Services, the USJFCOM CINC, and elements of the Joint Staff have been 
working to formalize JFCOM's role. JFCOM supports the joint process by 
evaluating operational concepts chartered by the Chairman and JROC, and 
must focus its experimentation efforts to support the development of 
these concepts and architectures. Also, because joint doctrine, 
organization, training, materiel, leadership/education, personnel and 
facilities (DOTMLPF) has the potential to be as crucial as materiel, 
the agreed JROC process will now evaluate those key elements.
    If confirmed as Vice Chairman, I will push for continued 
cooperation between the JROC and JFCOM to enable early review, 
oversight, and endorsement of critical JFCOM interoperability 
recommendations.
                                vieques
    Question. Over the past 2 years Naval forces deploying from the 
East Coast of the U.S. have been unable to conduct live-fire training 
on the Navy's training range on Vieques, Puerto Rico, which has 
degraded the readiness of these forces to execute their wartime 
missions.
    Based on your previous experience in looking at potential 
replacements for Vieques, do you believe a replacement site can be 
found that satisfies the Navy's goal of providing equivalent training 
capability for our Navy and Marine Corps units?
    Answer. No. The Navy and Marine Corps have conducted a number of 
very thorough examinations of various sites in a search for potential 
training locations. No other single location in the Atlantic Ocean or 
Gulf of Mexico provides the air, land, sea space, and support 
facilities that exist at the Vieques range complex.
    Question. If so, do you believe this can be accomplished with a 
single replacement site?
    Answer. No.
    Question. Do you believe a replacement for Vieques can be 
identified and made available for training purposes by May 2003?
    Answer. No.
    Question. Do you believe we should cease training on Vieques by a 
certain date or only when a replacement for Vieques has become 
operational?
    Answer. The Secretary of the Navy has made that decision and it is 
a service call his decision to make.
    Question. Do you believe the referendum on the future of live-fire 
training on Vieques currently scheduled for November 6, 2001, should be 
canceled?
    Answer. The planning and execution of the referendum on Vieques is 
an issue addressed by both the current and previous administrations and 
this Congress. I intend to follow the direction of the President and 
the laws of the land.
                                colombia
    Question. As Commander in Chief, U.S. Southern Command, you have 
played a major role in dealing with the Colombian civilian, military 
and law enforcement authorities and in overseeing the U.S. military's 
training of the Colombian military's counter-narcotics forces and the 
provision of other assistance. Some commentators have criticized U.S. 
assistance on the basis that some members of the Colombian military 
have allegedly violated the human rights of its citizens and have 
cooperated with the paramilitaries; others believe that U.S. assistance 
should not be limited to fighting drug traffickers and should be 
expanded to include counter-insurgency so as to preserve Colombia's 
democratic form of government; and finally, others fear that any U.S. 
assistance might eventually result in U.S. military involvement in the 
conflict in Colombia.
    Would you provide your views on the appropriate role of U.S. 
assistance to Colombia?
    Answer. Our role should be one of continued training of the 
Colombian security forces because today the combined capabilities of 
both the Colombian National Police and military are insufficient to 
provide security throughout the country. Without countrywide security 
for both citizens and infrastructure, Plan Colombia will not succeed 
nor will the Government of Colombia be capable of providing law and 
order.
    We can provide the needed training within the current personnel 
limits and without U.S. military involvement in the conflict. Properly 
trained counter-narcotics forces will ultimately transform from an 
exclusive counter-narcotics role to one of providing sustained 
security.
                    military-to-military engagement
    Question. U.S. Southern Command uses military-to-military 
engagement, including combined operations, exercises, training and 
education, security assistance, and humanitarian assistance programs, 
with host nations' forces to engender regional security.
    Do you believe that Southern Command's military-to-military 
engagement has been successful and is cost effective?
    Answer. Yes. Through our investment in military-to-military 
engagement, we are making a positive difference in helping to 
strengthen democracy, promote prosperity, and foster regional security 
in Latin America and the Caribbean. The resources invested in 
appropriate, focused engagement have helped shape a security 
environment characterized by increased regional cooperation and 
improved regional security.
    We deploy small preventive forces today to avoid large scale, 
conflict resolution deployments later.
    Question. Based upon your assignments elsewhere, do you believe 
that military-to-military engagement is a valuable tool for other 
regions of the world?
    Answer. Yes.
                          anthrax vaccination
    Question. DOD officials have testified that anthrax is the greatest 
biological weapon threat to our military force because it is highly 
lethal, easy to produce in large quantities, and remains viable over 
long periods of time. The anthrax vaccination program has been 
curtailed because of limited quantities of FDA approved vaccine.
    Do you continue to support the policy of vaccinating our service 
men and women to immunize them against the use of weaponized anthrax?
    Answer. Yes. This is a force protection issue. We must do 
everything possible as a nation, to protect our soldiers, sailors, 
airmen and marines from the threats they face in an uncertain 
environment.
    Question. If confirmed, will you support full implementation of the 
Anthrax Vaccine Immunization Program if sufficient supplies of FDA 
approved anthrax vaccine become available?
    Answer. Yes.
                            lessons learned
    Question. What are the most important lessons that you have learned 
as Commander in Chief, U.S. Southern Command.
    Answer. I have gained an appreciation of the strategic importance 
of the U.S. Southern Command's Area of Responsibility (AOR) to U.S. 
national security interests. Thirty nine percent of U.S. trade is 
conducted in this hemisphere. Nearly 35 percent of our oil imports come 
from Latin America and the Caribbean, which is more than all of the 
Middle East countries combined. Of every dollar spent by countries in 
the AOR, 49 cents are on U.S. goods and services. Hispanics are the 
largest and fastest growing minority in the U.S. due mainly to 
immigration from Latin America. Although Colombia and counterdrug 
activities are important, U.S. Southern Command should not become 
Colombia or counterdrug centric. The strategic importance of the region 
is far too great to neglect our other partners and issues in the 
theater. We must strike a balance between our immediate priorities and 
our long-term interests.
    Given the dominant role that military forces traditionally play in 
Latin America, U.S. Southern Command's comprehensive and multifaceted 
engagement strategy has, and will continue to positively influence 
governments in the region. We must allocate sufficient resources to 
leverage these engagement opportunities and thereby continue to enjoy 
the benefits of a stable southern flank.
    I have also found that most regional problems and issues in the 
U.S. Southern Command's AOR require an interagency approach to be fully 
successful. Coordination and cooperation with the interagency has 
significantly improved our engagement with Partner Nations, counterdrug 
operations, and effectiveness in responding to regional crises.
    Finally, I must state my admiration for the truly outstanding 
soldiers, sailors, marines, airmen, coastguardsmen and civilians that 
serve at U.S. Southern Command. They are dedicated professionals and I 
am proud to serve with them and their families.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Vice Chairman of the Joint Chiefs of Staff?
    Answer. If I am confirmed, my first priority will be to ensure our 
soldiers, sailors, airmen, marines, and coastguardsmen are ready to 
meet the near-term challenges of executing the tasks that support our 
National Military Strategy. We must ensure they are organized, trained, 
equipped, and supported with the tools required to protect our Nation's 
security interests--both at home and abroad. Second, we must have the 
proper force structure to implement this strategy. Third, we must make 
the investment to modernize, recapitalize, and transform our forces to 
meet the challenges of the 21st century.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I'll assist the Chairman in working with the 
Secretary of Defense, the Service Chiefs, and the combatant commanders 
to ensure we focus on readiness issues for the near-term challenges 
while implementing programs in concert with the Secretary's Defense 
Planning Guidance to transform and modernize the force.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Vice Chairman of the Joint 
Chiefs of Staff?
    Answer. The most important function of the Vice Chairman is to 
assist the Chairman in his duties to provide military advice to the 
Secretary of Defense, the President, and the National Security Council. 
Currently, there are no major problems in performing this function.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, one of my top priorities would be to assist 
the Chairman in his efforts to better equip our staffs to enable swift, 
accurate information flow. Our information and decision capabilities 
are critical to providing accurate and timely advice to the National 
Command Authority (NCA). We must ensure that these systems are state of 
the art and interoperable. Furthermore, we must ensure that our 
transformation efforts enhance joint command and control throughout 
DOD.
                         combattting terrorism
    Question. The Joint Task Force-Civil Support (JTF-CS) located 
within Joint Forces Command is a relatively new task force that is 
expected to be a key player should the Department of Defense be called 
upon to play a supporting role in the U.S. Government's response to a 
domestic weapons of mass destruction (WMD) event.
    What steps do you think should be taken to ensure that the JTF-CS 
is fully prepared to fulfill its responsibilities in the event of a 
domestic WMD event?
    Answer. Joint Forces Command was directed to create a full-time, 
standing Joint Task Force Headquarters for Civil Support capable of 
responding to a Lead Federal Agency (e.g., the Federal Emergency 
Management Agency) request for assistance during an event involving 
Chemical, Biological, Radiological, Nuclear, or High Explosive (CBRNE). 
Though JTF-CS has no standing forces assigned, forces may be assigned, 
attached, or placed under the operational control of JTF-CS on a 
situational basis.
    Important steps associated with developing the capabilities of JTF-
CS have already taken place, to include mission analysis, (including 
possible expansion) and then developing internal and external plans and 
exercises with the interagency. In light of recent events, it is clear 
that the capabilities of this trained Joint Task Force Headquarters are 
more critical than ever if DOD should be needed to respond for 
Consequence Management (CM) support to CBRNE incidents. Continued 
interagency liaison and training exercises are critical to the 
continued refinement of tactics, techniques and procedures to ensure a 
rapid and efficient DOD response.
                              encroachment
    Question. On November 27, 2000, the Senior Readiness Oversight 
Council identified several ``encroachment'' problems confronting the 
Department of Defense including protection of endangered species, 
unexploded ordnance and other constituents, commercial demand for 
bandwidth and frequency, sustainability of the maritime environment, 
demand for use of airspace, protection of air quality, abatement of 
airborne noise, and growth of urban areas. At a March 20, 2001, hearing 
before the Readiness and Management Support Subcommittee, 
representatives of the military services expressed concern that this 
encroachment was hindering their Title 10 responsibility to train the 
forces.
    If confirmed, what actions would you take to address these 
problems?
    Answer. Training is critical to the readiness of combat forces and 
encroachment is a serious issue with national security implications. 
Under Title 10, U.S. Code, training of the Armed Forces is a Service 
responsibility, and the Services are working hard not only to maintain 
their training facilities, but to improve their stewardship of the 
environment, while strengthening their relationships with local 
communities.
    There is a collaborative effort within the Department of Defense to 
address encroachment issues. We have draft action plans for the various 
aspects of encroachment. We are working a community outreach program to 
minimize the impact of encroachment by fostering a dialogue with local 
leadership, discussing work-around initiatives, and developing 
potential technology solutions to provide a similar level of training.
    This is a solid and prudent approach for resolving the encroachment 
issues. If confirmed, I'll continue to support these efforts.
                       readiness reporting system
    Question. The systems that the military services use to measure 
their readiness have been criticized as outdated and inappropriate for 
a military of the 21st century. Some of the specific criticisms raised 
have been that the systems measure past readiness rather than future 
readiness, and measure the readiness of the forces to perform a major 
theater war mission rather than the mission to which they are currently 
assigned.
    Do you agree with these criticisms and, if confirmed, what actions 
would you take to change the readiness reporting system?
    Answer. I agree in part. As Vice Chairman, I will be involved in 
the readiness of the force, in the assessment process, and in 
identifying solutions to our shortfalls. The Joint Staff hosts annual 
CINC/Service conferences on readiness, and based on the CINC/Service's 
feedback, the focus on joint warfighting is the proper emphasis, and is 
also in accordance with Section 117, Title 10, U.S. Code. Units are 
designed-manned, armed, equipped, and trained to conduct wartime 
missions. But I also recognize the necessity to assess our readiness 
for missions other than war. Less than 2 years ago, the Joint Staff 
created a reporting mechanism within the Global Status of Resources and 
Training System to do this. While this was a good first effort, we need 
to explore the expansion and/or refinement of this reporting mechanism. 
As set forth in the DPG, the Services and Chairman must recommend to 
the Secretary of Defense a comprehensive readiness reporting system. If 
confirmed, I will assist the Chairman to further enhance the 
timeliness, accuracy, and usefulness of the readiness reporting system.
                 cinc-identified readiness deficiencies
    Question. Over the last several years, the Quarterly Readiness 
Reports that the Department prepares for Congress have outlined a 
number of CINC identified readiness related deficiencies. Many of these 
are listed as Category I deficiencies which entail significant 
warfighting risk to execution of the National Military Strategy. 
Although these deficiencies have been reported for the past several 
years, they have not as yet been effectively addressed. This has raised 
concerns that the requirements of the warfighting CINCs are not being 
incorporated into the military services budgets and the Department's 
acquisition process.
    If confirmed, what actions would you take to ensure that these 
requirements are understood and funded within the Department's budget?
    Answer. If confirmed, I will assist the Chairman to report the 
combatant commanders' identified readiness deficiencies. I will also 
assist the Chairman to make assessments and recommendations to the 
Secretary of Defense regarding the reporting system, the effectiveness 
of the Services' budgets, and the acquisition process to solve these 
deficiencies.
       commercial vs military requirements for frequency spectrum
    Question. The Federal Government is trying to identify a band of 
frequencies that can be used for the operation of 3rd Generation 
Wireless Communications devices. As a part of this overall effort, the 
Department of Defense conducted a study to determine the cost and 
operational impact that would result if the military services were to 
surrender the use of the 1755-1850 MHZ band of frequencies on which 
they currently operate their equipment. That study found that it would 
take at least $4.3 billion and 17 years to vacate the band if a 
suitable band of alternative frequencies were identified for the 
Department's use. The Secretary of Defense and General Shelton recently 
signed a letter to Members of Congress that outlined the importance of 
spectrum availability, and this band in particular, for the 
Department's operations.
    What is your view of that assessment?
    Answer. I fully support the position of the Secretary of Defense 
and General Shelton. Spectrum access is vital to combat operations and 
training. Guaranteed access to spectrum is a cornerstone of information 
superiority and our warfighting abilities. Without this access, the 
ability of the Department to use current and planned weapon systems, to 
employ new technologies, and to effectively command and control 
conventional and nuclear forces is seriously compromised. The 1755-1850 
MHz frequency band supports over a $100 billion investment in key 
satellite, air combat training, precision weapons guidance, and 
battlefield communications systems. These systems provide commanders 
and their forces real-time intelligence, voice, data, and video 
information and precision strike ability necessary for a leaner, more 
agile and more flexible force to meet global mission requirements. 
Competition for spectrum, both nationally and internationally, is 
increasing and the Department's growth and need for spectrum parallels 
commercial industry's needs. We must ensure any spectrum decision 
carefully considers national security, the needs of commercial 
interests, and other important national interests.
    We are fully committed to cooperating with Congress and the Federal 
Communications Commission and within the administration in finding 
solutions for 3rd generation implementation that meet commercial needs 
while protecting essential national security capabilities.
                             role of cinc's
    Question. Based on your service as the Commander in Chief, U.S. 
Southern Command, do you have any recommendation on ways to improve the 
effectiveness and capabilities of the regional combatant commanders?
    Answer. Sound management of PERSTEMPO, equipment modernization, and 
investment in infrastructure will lead to more capable and efficient 
forces. One area in need of greater interagency synergy is the 
implementation of policy decisions. We need a mechanism at the national 
level to track and coordinate the efforts of individual departments.
          quality of life, u.s. southern command headquarters
    Question. Since the establishment of U.S. Southern Command 
Headquarters in Miami, there have been consistent concerns over the 
quality of life of our military personnel assigned to the Command.
    What, if any, improvements should be taken to improve the quality 
of life for these dedicated personnel?
    Answer. Concern for quality of life issues is a critical element of 
leadership, one which properly reflects commitment to our personnel and 
helps create an environment supportive of recruitment, retention, and 
readiness. Regarding SOUTHCOM headquarters in Miami, I applaud the 
efforts of the Army, in particular, and of other organizations such as 
the Defense Commissary Agency, as they develop new and creative means 
to support quality of life requirements for SOUTHCOM personnel. The key 
element is providing predictability--a reasonable degree of consistency 
in the programs, policies, and services offered from one assignment to 
another, from one location to another.
    The current SOUTHCOM headquarters location is strategically 
important for executing the mission of the command but it is in no way 
traditional; there is not an active installation from which to draw 
support. However, this does provide the opportunity to develop new and 
creative methods to meet requirements. Partnering with the local 
community and local businesses has been a key to development and 
continued improvement of support and services that are comparable to 
those found on a typical military installation. Childcare requirements, 
for example, are addressed by contracting for available space at 
nationally accredited childcare centers so that the service member pays 
rates comparable to those at any military installation. Junior enlisted 
housing is another example, we lease apartments from the existing 
capacity in the local community to provide for our junior personnel--
and currently no one is on a waiting list. These are just two examples 
of progress.
    Still, there are shortcomings. We have not yet established a 
partnership within the local community to approximate typical 
commissary savings for service members. However, we have received great 
support and flexibility from the Defense Commissary Agency to bring 
commissary benefits and savings to military personnel residing in Miami 
through a ``Tent Sale'' every 4 months. This is only an occasional 
relief, but it makes a positive impact and takes us a step closer to 
predictability. Another concern is with medical support. There is a 
small medical clinic and dispensing pharmacy at the headquarters that 
adequately serves as the primary care manager for SOUTHCOM active duty 
personnel and their family members. Additional requirements for 
specialized treatment, laboratory work, or dental care are met through 
the network of providers in the greater Miami area that participate 
with Tricare. The turnover of doctors participating in Tricare has been 
frustrating. Implementing changes or procedures that decrease the 
turnover in doctors will greatly improve continuity of care and 
satisfaction. Further, problems with administrative and billing 
processes have caused difficulty in the past. Though some progress has 
occurred in this area, systemic improvements are needed. In addition, 
full implementation of the basic allowance for housing entitlement 
increases--eliminating the ``out-of-pocket'' burden for our personnel--
is especially important. Finally, we will continue to seek a cost-of-
living allowance (COLA) to offset the high cost in Miami.
                          command and control
    Question. Despite significant investment in military service, 
national and combatant commander command and control systems, more than 
one of the recently-convened defense review panels concluded that U.S. 
forces do not have a deployable, joint command and control system that 
can immediately be placed into operation to coordinate the efforts of 
U.S. and coalition forces.
    What actions do you think are necessary to ensure the rapid 
development of such an important capability?
    Answer. This is an absolutely critical capability and we do have 
deficiencies in addressing the full command and control 
interoperability required by a Joint Task Force (JTF) headquarters. The 
current DPG calls for plans to establish standing JTF headquarters and 
recommends improvements to operating procedures and capabilities, to 
include addressing rapidly deployable interoperable command and 
control. This will be a major part of the experimentation in JFCOM's 
Millennium Challenge 2002 exercise. Additionally, JFCOM will take the 
lead to identify and fix current mission critical JTF C2 legacy 
interoperability issues. Further, I fully support the criticality of 
development and fielding of rapidly deployable, interoperable, command 
and control systems. If confirmed, I will, in my delegated role as 
Chairman of the Joint Requirements Oversight Council along with the 
Service Vice Chiefs, provide the necessary senior military perspective 
to achieve an interoperable joint command and control capability.
                         information operations
    Question. Joint Vision 2020 and various defense reviews have 
highlighted the importance of information operations in future warfare.
    What role and what obstacles do you see for information operations 
as an integral part of US joint military operations?
    Answer. Information operations are a means to ensure decision 
superiority--the key to successful military operations in the future. 
IO provides non-kinetic options, with promising effects to defeat 
adversaries, at low-risk to military forces. But we're faced with three 
challenges: planning and executing these activities the same way we 
would any wartime campaign; integrating the military's efforts with 
those of other U.S. Government agencies; identifying and removing 
unintended effects while keeping up with rapidly changing information 
technologies. We can meet these challenges.
    Question. Are you satisfied that there is unity of effort within 
the Department of Defense in the development of information operations 
capabilities?
    Answer. Emerging computer network attack and defense capabilities 
represent an important aspect of information operations. We have been 
working hard to enhance the security of DOD computer networks and to 
defend those networks from unauthorized activity (e.g., exploitation of 
data or attack). Recognizing that the threat to our networked systems 
is real and increasing, we established the Joint Task Force--Computer 
Network Defense in December 1998, and assigned responsibility for that 
mission to U.S. Space Command in 1999. We have incorporated intrusion 
detection software in many of our networks, erected firewalls, and 
increased awareness training for our personnel through our information 
assurance program.
    In October 2000, the Commander in Chief, U.S. Space Command 
(USSPACECOM), assumed responsibility as the military lead for computer 
network attack as well, and charged USSPACECOM with overseeing the 
development of capabilities and procedures for this aspect of offensive 
information operations. In April 2001, U.S. Space Command redesignated 
the Joint Task Force--Computer Network Defense as the Joint Task 
Force--Computer Network Operations to reflect this new mission. The 
Services also cooperate with other Defense and Intelligence Community 
agencies in efforts to defend the networks that are vital to our 
national security.
    As you have indicated, the Services, Defense Agencies, and 
combatant commanders are all devoting a great deal of effort to this 
area. I believe we have the structures and procedures in place to keep 
duplication of effort to a minimum and ensure advances in information 
operations capabilities across the Department.
             transformation/revolution in military affairs
    Question. The President and the Secretary of Defense have called 
for a significant transformation of at least a portion of our Armed 
Forces to counter emerging 21st century threats.
    In your opinion, what will constitute transformation of our Armed 
Forces?
    Answer. Transformation is an on-going process for conceptualizing, 
developing and fielding new combinations of operational concepts, 
capabilities, organizational arrangements and training regimens that 
provide U.S. joint forces with advantages that fundamentally change our 
own, or render less effective potential adversaries', ways of waging 
war. It is usually evolutionary in nature, but may be revolutionary. 
Modernization of our weapons systems, information technology, and other 
defense materiel equipment is a key part, but only one of many elements 
in the transformation equation.
    True transformation can only occur through evolution within all the 
critical joint force considerations of doctrine, organization, 
training, material, leadership and education, personnel and facilities 
(DOTMLPF). A comprehensive DOTMLPF approach is necessary to field and 
employ future capabilities that fundamentally change and improve our 
operational and warfighting effectiveness.
    Joint Transformation also requires changes within the three 
supporting processes of requirements generation, acquisition, and the 
Planning, Programming, and Budgeting System (PPBS) processes. Over the 
past year, the military has made significant strides in the improvement 
of the requirements generation process through the evolving strategic 
integration role of the Joint Requirements Oversight Council (JROC). 
The Requirements Generation System (RGS) process was shifted from a 
threat-based system to a joint operational concept and capabilities-
based system. Additionally, the process was adapted to enable the 
introduction and consideration of transformation initiatives from a 
variety of sources, to include Joint and Service experimentation. The 
Secretary of Defense is working hard to streamline the acquisition and 
PPBS processes to facilitate transformation.
    Question. Are you confident that the defense review process/QDR now 
concluding will outline a clear vision for transformation within the 
Department?
    Answer. The senior civilian and military leadership within DOD have 
reached consensus on an approach to transformation--one that focuses 
clearly on six critical operational challenges: (1) homeland defense; 
(2) projecting forces in anti-access environments; (3) engaging mobile 
targets at long range; (4) information operations; (5) space 
operations; and (6) developing a common operational picture. The QDR 
has identified the need for strengthening joint organizations and 
operations through the development of standing joint task force 
headquarters. It calls for increasing joint experimentation and concept 
development. It places emphasis on exploiting U.S. advantages in 
intelligence. Finally, it charts a course for transforming U.S. 
military capabilities over time to address key operational challenges.
                       quadrennial defense review
    Question. If confirmed, you will take office on or about the day 
the Quadrennial Defense Review (QDR) is forwarded to Congress.
    Not having had a formal role in the review process, how do you 
perceive your role and responsibilities in implementing the 
recommendations of the QDR?
    Answer. I did have a role in the process for this QDR. My fellow 
unified commanders and I had meetings with Secretary of Defense 
Rumsfeld to discuss this and we were encouraged to participate. I am 
familiar with the process and direction of the review. If confirmed as 
the Vice Chairman, my role will be to support the Chairman in 
implementing the actions directed by the Secretary of Defense.
    Question. As a combatant commander, were you satisfied that 
warfighting CINCs had ample access to the review process?
    Answer. I was satisfied that I had as much time as was available in 
the review process. There was insufficient time given that a new 
administration had recently taken office and was populating the defense 
establishment and establishing its own strategies and priorities.
                       joint standing task forces
    Question. At least two of the strategic review panels made 
recommendations concerning the need for permanent, operations-oriented, 
joint headquarters to better and more quickly integrate joint forces 
and conduct complex joint operations. Recent reporting indicates the 
Department of Defense may recommend the establishment of these standing 
joint headquarters at each of the combatant commands.
    As a combatant commander, did you perceive a need for such a 
standing operations headquarters in your area of responsibility?
    Answer. Yes. In fact, U.S. Southern Command has had its own 
standing joint task force with JTF-Bravo in Soto Cano, Honduras. JTF-
Bravo has served Southern Command's mission and our Nation well both in 
cooperative engagement and disaster response.
    Question. In your opinion, are such elements needed at every 
combatant command?
    Answer. This question has been thoroughly debated within the 
Department of Defense over the past few months. There is a general 
consensus that some form of standing joint headquarters structure for 
each geographic combatant command will improve the performance of our 
joint forces.
    The department is considering standing headquarters alternatives, 
including a model developed within JFCOM's joint experimentation 
program that will be tested next August during the Millennium Challenge 
experiment. Any alternative must help build habitual pre-established 
relationships, provide continuity of planning and operations, and 
provide baseline Command, Control, Communications, Computers, 
Intelligence, Surveillance, and Reconnaissance (C\4\ISR), and Standing 
Operating Procedures.
    However, there are many significant issues, including manning, 
infrastructure, and cost, which we must consider before implementation. 
Also, each geographic combatant command has different requirements that 
may drive a different standing JTF headquarters structure. DOD is 
currently working toward final decision in Fall 2002, following the 
completion of Millennium Challenge.
    Question. Should any or all of these headquarters have specifically 
assigned joint forces that regularly train and operate together?
    Answer. The Secretary of Defense tasked the Chairman to examine the 
issue and submit plans for establishing standing Joint Task Forces 
(JTFs) in spring 2002. If we successfully implement our standing joint 
headquarters concept, we can tailor each JTF as required by the 
situation, leaving forces available for other important uses in 
peacetime. One of the beauties of a JTF is its flexibility in 
organization to meet the requirements of each mission. Through 
effective joint training and aggressive joint experimentation, we can 
improve joint interoperability and effectiveness without incurring the 
disadvantages of assigning forces habitually to the standing JTF 
headquarters.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Vice Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                             plan colombia
    1. Senator Landrieu. General Pace, Secretary of State Colin Powell 
was scheduled to meet with President Andreas Pastrana of Colombia to 
discuss Plan Colombia on September 11. What are your views on Plan 
Colombia as it currently operates? What could be done to improve the 
efficacy of Plan Colombia? In light of the events of September 11, 
should the U.S. resume intercepting planes that trigger red flags out 
of Colombia because there is a chance such planes could reach U.S. 
airspace with a weapon of mass destruction?
    General Pace. Our current support to Colombia has been properly 
focused to support President Pastrana in Plan Colombia. Plan Colombia 
has ten parts, one of those parts is military. Our assistance to the 
Colombian Counternarcotics Brigade and the provision of the helicopters 
by the U.S. Congress, through the Department of State, has strengthened 
Colombia's Joint Task Force South. Since they began operations last 
December, they have eradicated almost 30,000 hectares and have wiped 
out some 300 labs. They provide security where they are in Putumayo 
Province. But the fact of the matter is, if they were to move from that 
province to somewhere else, then the stability of that province would 
be undermined.
    The other parts of Plan Colombia include things like health, 
judicial reform, schools, roads, and alternative development. None of 
these can grow until there is security throughout the Nation. Although 
Colombian Military and Colombian Police have been strengthened since 
the beginning of Plan Colombia, the Colombian Military and Police 
combined is insufficient to provide security throughout the Nation. The 
proper way ahead in the current support for Plan Colombia is to assist 
the Colombian Government in building additional counternarcotics 
brigades. These brigades could take on first the counternarcotics 
problem and then second transition more into a homeland security type 
organization that can provide stability--to improve the efficacy of 
Plan Colombia--so that Plan Colombia can be ultimately successful.
    The Colombian military, the American Embassy led by Ambassador 
Patterson, and myself, all are prepared and support the resumption of 
providing to the Colombian military the intelligence support they need 
so that they can vector their own aircraft to intercept airplanes. 
There is much that we can do through our radar system without having 
the additional input of some of the airframes that we would like to 
have but that are not absolutely critical to the information flow. Our 
capability and procedures that are in place are sufficient to intercept 
an aircraft, which has triggered a red flag and may be carrying a 
weapon of mass destruction, approaching U.S. airspace, regardless of 
its point of origin outside North America.

                            homeland defense
    2. Senator Landrieu. General Pace, the North American Aerospace 
Defense Command is constructing the operation designed to keep hijacked 
aircraft from being used as terrorist missiles in the United States. 
Meanwhile, Joint Forces Command has the responsibility, through its 
Joint Task Force-Civil Support, to provide military assistance to civil 
authorities for the consequence management of weapons of mass 
destruction incidents within the United States. Does that mean that 
defense of the U.S. homeland is assigned to several commands, or, 
perhaps, some aspects of homeland defense are not assigned at all?
    General Pace. An Execute Order was signed 16 October by the 
Secretary of Defense that delineated the Joint Operations Area, 
responsibilities, and relationships among the combatant commanders for 
Homeland Security. The responsibilities and relationships provided in 
the Execute Order are an extension of guidance already provided for in 
the Unified Command Plan and other DOD directives.
    All aspects of Homeland Defense are assigned to the combatant 
commanders and the Services. The events of 11 September have 
illustrated possible areas where seams can be eliminated or mitigated. 
We are currently reviewing the Unified Command Plan and will make 
necessary organizational changes for Homeland Security while ensuring 
we retain the ability to fight and win our Nation's wars.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
              role of joint staff in base closure process
    3. Senator Thurmond. General Pace, the Senate is currently 
considering our defense authorization bill. The bill authorizes an 
additional base closure round in 2003. The intent of the legislation is 
not only to elimination excess infrastructure, but also to reshape the 
infrastructure with the force structure. What role does the Joint Staff 
have in the base closure process?
    General Pace. The Chairman of the Joint Chiefs of Staff is required 
to advise the National Security Council, and Congress of the United 
States concerning all matters of military capability and readiness. 
Installations contribute to overall force readiness by providing the 
infrastructure to project and sustain military force to any area of the 
world where U.S. national interests are threatened. Excess 
infrastructure detracts from military readiness by diverting limited 
resources from personnel, training, and equipment modernization 
programs. During all previous BRAC actions, the Chairman and the Joint 
Staff conducted analytical reviews in order to develop comments and 
provide recommendations on operational issues generated from proposed 
realignments and closures. That analysis is critical to assure 
continued support to the combatant commands and overall national 
security.

    4. Senator Thurmond. General Pace, what prevents the Department 
from reshaping the infrastructure based on force structure 
requirements?
    General Pace. In the absence of legislated BRAC authority, there 
are no existing measures to effectively realign and/or dispose of 
infrastructure that is not required. Prior to 1977, the Department had 
much greater authority in the area of closing excess military 
installations. However, since the enactment of the BRAC law (codified 
in Title 10, U.S. Code, section 2687) in 1977, there have been no 
substantial base closures outside of the BRAC rounds specifically 
authorized by Congress. Section 2687 is extremely restrictive in its 
terms. Additionally, compliance with the National Environmental Policy 
Act further restrains the Department's ability to facilitate the 
closure, disposal, and economic redevelopment of installation 
properties.

                         innovative technology
    5. Senator Thurmond. General Pace, as the Vice Chairman, you will 
serve as the Chairman of the Joint Requirements Oversight Council, and 
will have a key role ensuring that our forces have the latest 
technology and weapons systems to carry-out their national security 
role. Although I believe the JROC has had a positive impact on the 
types of systems the Services develop, I am concerned that in this era 
of rapidly changing technology it may slow down or hinder getting that 
technology into the hands of our warfighters. What are your views on 
this matter?
    General Pace. I agree the U.S. technology base is clearly a 
national asset, and as JROC Chairman, I am absolutely committed to 
ensuring our forces are equipped with systems and capabilities that 
take advantage of the breakthroughs generated by the research and 
development community in a timely manner. Currently, there are a number 
of avenues we're already using to incorporate new technology into the 
system development process such as spiral development, planned ``block 
upgrades,'' and advanced concept technology demonstrations (ACTDs). 
Were also reviewing developmental and operational testing plans for 
opportunities to employ emerging systems in real-world conditions.
    Additionally, the combatant commanders' message from the field has 
remained consistent: they not only want the latest technology, but it's 
crucial the systems they take to the fight are interoperable. That's 
where the JROC is adding the most value. I am convinced our current 
plan to get the JROC involved at the beginning of the requirements 
process will better integrate complex requirement and architectural 
issues, more fully incorporate the substantial Joint Experimentation 
efforts in work at Joint Forces Command, and ultimately drive future 
weapon systems that are born joint.
    Finally, I see JROC reviews as ``surgical'' in nature, occurring at 
key points prior to major acquisition milestone decisions. 
Specifically, the amount of time new systems or requirements require 
oversight and guidance from the JROC is literally measured in days. So 
rather than hindering the transition of technology from laboratory to 
warfighter, the JROC process is designed to ensure requirements are 
calibrated against the constantly changing threat environment, 
performance parameters are on-track, and systems are ready to 
transition from development to production.
    In summary, while we continue to look at procedures to improve the 
responsiveness of our process to technological innovation, the JROC is 
a vital component in the effort to link the development of material and 
non-material solutions with a shared view of required operational 
capabilities to achieve true DOD-wide transformation.

                          reliance on reserves
    6. Senator Thurmond. General Pace, the call-up of Reserve Forces to 
support the war against the terrorists proves the important role the 
reservists have in support of our national security. Despite the 
willingness of the reservists to respond to the call of duty, I am 
concerned that the emerging threats will require increased call-ups of 
our reservist, which potentially will have an impact on their 
employment. Since the call-up of reservists reflect a shortage of 
certain skills in the active ranks, is it time to adjust the type and 
number of skills we maintain in the Active Forces so the Nation is 
better prepared to meet the new threats?
    General Pace. As an integral part of the Total Force, we continue 
to rely on our Reserve components across a wide range of missions. They 
are essential to current war plans and the homeland defense mission as 
detailed in the 30 September 2001 Quadrennial Defense Review (QDR) 
Report and confirmed by the recent call-up for Operations Noble Eagle 
and Enduring Freedom. The QDR Report also outlines the Department of 
Defense's transformation strategy for U.S. military forces, which will 
draw on the strengths and capabilities of the Reserve and National 
Guard. Some of the most significant issues to deal with in the coming 
months are the size, composition, and missions of our defense forces. 
The QDR Report stipulates the Department of Defense will initiate a 
thorough review of the active and Reserve mix to ensure the appropriate 
use of the Reserve component. The review will build on recent 
assessments of Reserve component issues that highlighted emerging roles 
for the Reserve components in homeland defense, in smaller-scale 
contingencies, and in major combat operations.

                              joint staff
    7. Senator Thurmond. General Pace, we frequently hear that the 
Joint Staff has become too large and is encroaching into areas that 
have historically been the sole domain of the military departments. 
What is your perspective or these issues?
    General Pace. I disagree with any assertion that the Joint Staff is 
too large and is encroaching into areas that have historically been the 
domain of the Military Departments. First, in recent years, the actual 
number of personnel assigned to the Joint Staff has steadily declined, 
in spite of the fact that we have had more duties--in addition to our 
statutory ones--levied upon us. In 1987, the Joint Staff's authorized 
personnel strength was 1,627. Today, it's 1,242. In keeping with the 15 
percent management headquarters cuts directed in the Fiscal Year 2000 
National Defense Authorization Act, the Joint Staff is girding for yet 
another round of cuts that will translate into 195 people. Second, the 
DOD Reorganization Act of 1986 (also known as the Goldwater-Nichols 
Act) added considerable definition and clarity to the roles and 
responsibilities of the Chairman, the Joint Chiefs of Staff, the 
combatant commanders, and the Services. The roles and responsibilities 
of the Chairman and his Joint Staff are those spelled out in Title 10, 
as well as those duties assigned by the National Command Authorities.
                                 ______
                                 
              Question Submitted by Senator Rick Santorum
                              afghanistan
    8. Senator Santorum. General Pace, in 1993, elite United States 
forces attempted to capture General Mohamed Farrah Aidid, the dominant 
political leader in Somalia, one of the worlds' poorest countries. The 
decision would result in a bloody firefight as Rangers and men of the 
Delta Force made their seventh attempt to grab Aidid. Eighteen American 
soldiers died, and 77 were wounded. An estimated 300 Somalis were 
killed and another 700 wounded, a third of the casualties women and 
children. General Aidid was not captured and the U.S. withdrew from 
Somalia.
    General, you served as Deputy Commander, Marine Forces, Somalia 
from December 1992 to February 1993, and as Deputy Commander, Joint 
Task Force-Somalia from October 1993 to March 1994. Based on your 
experiences in Somalia, can you share with me your insights on the 
challenges facing U.S. military forces in Afghanistan? Are there 
parallels between the U.S. seeking to capture Osama bin Laden and U.S. 
attempts to capture Somalian warlord Aidid?
    General Pace. Since Afghanistan is a landlocked country located a 
great distance from the United States, we must rely heavily on our 
forward-deployed forces in order to conduct military operations in that 
region of the world. Afghanistan is a country of extremely inhospitable 
terrain with rugged, mountainous regions and numerous choke points. The 
Taliban know their countryside well and understand the best locations 
from which to defend and the best routes along which to attack. The 
weather there is also extreme. Winter is approaching quickly and could 
impact military operations. I want to reassure you however, that our 
forces train on a regular basis under varying harsh conditions and 
stand ready today to answer our Nation's call to arms in this new war 
on terrorism. I am confident that the American military will prevail.
    Both men are leaders of their respective factions, command extreme 
respect and obedience from their followers, are surrounded by loyal and 
irregular combatants, and rely heavily on graft and money to retain 
power. There are however, stark differences between the two scenarios. 
Osama bin Laden is widely recognized in the international community as 
a criminal and a murderer. As such, there exists widespread support to 
eliminate him and his terrorist organization. Also, Somalia was a 
limited, small-scale operation compared to the current operation being 
conducted in Afghanistan. We have committed the full range of military 
might of the U.S. Armed Forces to this operation. We fully support the 
President and his vision to root out the terrorists and those who 
harbor and support them.
                                 ______
                                 
    [The nomination reference of Gen. Peter Pace follows:]
                          Nomination Reference
                           As In Executive Session,
                               Senate of the United States,
                                                 September 4, 2001.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Vice Chairman of 
the Joint Chief of Staff and appointment to the grade indicated while 
assigned to a position of importance and responsibility under Title 10, 
United States Code, Section 601 and 152:

                             To be General

    Peter Pace, 0000.
                                 ______
                                 
          Resume of Peter Pace, General, U.S. Southern Command
    General Peter Pace is currently serving as the Commander in Chief, 
U.S. Southern Command, Miami, Florida.
    General Pace was born in Brooklyn, NY, and raised in Teaneck, NJ. 
He received his commission in June 1967, following graduation from the 
United States Naval Academy. He also holds a masters degree in Business 
Administration from George Washington University (1972). Upon 
completion of The Basic School, Quantico, VA, in 1968, he was assigned 
to the 2d Battalion, 5th Marines, 1st Marine Division in the Republic 
of Vietnam, serving first as a rifle platoon leader and subsequently as 
assistant operations officer.
    Returning from overseas in March 1969, he reported to Marine 
Barracks, Washington, DC. During this tour, he served as Head, Infantry 
Writer Unit, Marine Corps Institute; Platoon Leader, Guard Company; 
Security Detachment Commander, Camp David; White House Social Aide; and 
Platoon Leader, Special Ceremonial Platoon. He was promoted to captain 
in April 1971. In September 1971, General Pace attended the Infantry 
Officers' Advanced Course at Fort Benning, Ga. Returning overseas in 
October 1972, he was assigned to the Security Element, Marine Aircraft 
Group 15, 1st Marine Aircraft Wing, Nam Phong, Thailand, where he 
served as Operations Officer and then Executive Officer.
    In October 1973, he was assigned to Headquarters Marine Corps, 
Washington, DC, for duty as the Assistant Majors' Monitor.
    During October 1976, he reported to the 1st Marine Division, Camp 
Pendleton, Calif., where he served as Operations Officer, 2d Battalion, 
5th Marines; Executive Officer, 3d Battalion, 5th Marines; and Division 
Staff Secretary. He was promoted to Major in November 1977. In August 
1979, he reported to the Marine Corps Command and Staff College as a 
student.
    Upon completion of school in June 1980, he was assigned duty as 
Commanding Officer, Marine Corps Recruiting Station, Buffalo, NY. While 
in this assignment, he was promoted to Lieutenant Colonel in October 
1982. Reassigned to the 1st Marine Division, Camp Pendleton, General 
Pace served from June 1983, until June 1985, as Commanding Officer, 2d 
Battalion, 1st Marines.
    In June 1985, he was selected to attend the National War College, 
in Washington, DC.
    After graduation the following June, he was assigned to the 
Combined/Joint Staff in Seoul, Korea. He served as Chief, Ground Forces 
Branch until April 1987, when he became Executive Officer to the 
Assistant Chief of Staff, C/J/G3, United Nations Command/Combined 
Forces Command/United States Forces Korea/Eighth United States Army.
    General Pace returned to Marine Barracks in Washington, DC, in 
August 1988, for duty as Commanding Officer. He was promoted to Colonel 
in October 1988. In August 1991, he was assigned duty as Chief of 
Staff, 2d Marine Division, Camp Lejeune. During February 1992, he was 
assigned duty as Assistant Division Commander. He was advanced to 
Brigadier General on April 6, 1992, and was assigned duty as the 
President, Marine Corps University/Commanding General, Marine Corps 
Schools, Marine Corps Combat Development Command, Quantico, VA, on July 
13, 1992. While serving in this capacity, he also served as Deputy 
Commander, Marine Forces, Somalia from December 1992-February 1993, and 
as the Deputy Commander, Joint Task Force--Somalia from October 1993-
March 1994. General Pace was advanced to Major General on June 21, 
1994, and was assigned as the Deputy Commander/Chief of Staff, U.S. 
Forces, Japan. He was promoted to Lieutenant General and assigned as 
the Director for Operations (J-3), Joint Staff, Washington, DC, on 
August 5, 1996. On November 26, 1997 he assumed duties as Commander, 
U.S. Marine Corps Forces Atlantic/Europe/South with Headquarters in 
Norfolk, Virginia; Stuttgart, Germany; and Miami, Florida. He was 
advanced to his current grade and assumed duties as Commander in Chief, 
U.S. Southern Command on September 8, 2000.
    General Pace attended Harvard University in the program for Senior 
Executives in National and International Security.
    General Pace's personal decorations include: Defense Distinguished 
Service Medal; Defense Superior Service Medal; the Legion of Merit; 
Bronze Star Medal with Combat ``V''; the Defense Meritorious Service 
Medal; Meritorious Service Medal with gold star; Navy Commendation 
Medal with Combat ``V''; Navy Achievement Medal with gold star; and the 
Combat Action Ribbon.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Gen. Peter 
Pace, USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter Pace.

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    September 4, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    5 November 1945; Brooklyn, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to former Lynne Anne Holden.

    7. Names and ages of children:
    Peter Pace, Jr., 25, 26 Oct. 76.
    Tiffany Pace, 23, 21 Aug. 78.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the Executive Branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Marine Corps Association.
    Member, The Retired Officers' Association.
    Member, Honorable Order of Kentucky Colonels.
    Member, Naval Academy Alumni Association.
    Member, National War College Alumni Association.
    Member, Board of Directors, Marine Corps--Law Enforcement 
Foundation--non-compensatory.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the Executive Branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    I do so agree.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I do so agree.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
of Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                        Peter Pace.
    This 18th day of September, 2001.

    [The nomination of Gen. Peter Pace was reported to the 
Senate by Chairman Levin on September 26, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 26, 2001.]
                              ----------                              

    [Prepared questions submitted to Gen. John W. Handy, USAF, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Absolutely. The Goldwater-Nichols Act was a much needed and 
very timely piece of transition legislation for our military. The 
issues articulated in the act were real. Pre-Goldwater-Nichols, 
insufficient JCS review, oversight of contingency planning, unclear 
chains of command, and inadequate attention to both the quality and 
training of officers assigned to joint duty hampered the efficient 
employment of our Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. Since 1986, the Joint Staff, the Unified Commands, and the 
Services have vigorously pursued the intent of the Goldwater-Nichols 
Act. Today, the corporate advice provided by the Chairman of the Joint 
Chiefs of Staff is detailed, meaningful, timely, and extremely 
influential. Our civilian leadership trusts that our Armed Forces can 
and will carry out our assigned missions in the most effective and cost 
efficient manner possible. The strategic planning, contingency 
planning, theater engagement planning, crisis response activities, 
programs and budgets of the Unified Commands and the services are in 
sync with the National Security Strategy and are based upon realistic 
combat and support force projections. Lastly, there has been an 
exponential leap in the quality and education of the personnel assigned 
to the various joint staffs. The Services now realize that joint 
experience is an absolute necessity in the career progression of its 
best and brightest officers and are resolutely filling their joint 
billet allocations with the same.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspect of these defense reforms has been 
the demonstrated improvement in the joint warfighting capabilities of 
the United States Armed Forces. Over the past 15 years, the Goldwater-
Nichols Act has given us a focus on joint doctrine, joint professional 
military education, and coordinated military planning. Chains of 
command have been clarified from the National Command Authority all the 
way down to individual on-scene commanders. Today, Combatant Commanders 
clearly understand their planning, training and execution 
responsibilities. Equally important, they understand that their ability 
to articulate their equipment resource needs and priorities weighs 
heavily in the services' POM inputs and the overall Department of 
Defense fiscal planning effort.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the national security strategy? If so, what areas do you 
believe it would be appropriate to address in these modifications?
    Answer. The military now has 15 years' experience operating under 
Goldwater-Nichols it has significantly changed the way the Department 
of Defense operates. By and large, the changes have enhanced the way 
our Nation employs its military forces. There may be some areas that 
could benefit from legislative changes; however, I would like to 
reserve judgment on this until after I've studied any specific 
proposals. If confirmed, I would be pleased to share my thoughts with 
the committee as appropriate.
    Question. Based upon your experience as Vice Chief of Staff for the 
Air Force, do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and that the 
policies and procedures in existence allow that role to be fulfilled?
    Answer. Based upon my experience as Vice Chief of Staff of the Air 
Force, the role of the combatant commanders under the Goldwater-Nichols 
Act seems appropriate to me. Existing policies and procedures appear to 
allow that role to be fulfilled. If confirmed, I'll carefully monitor 
my roles and responsibilities under Goldwater-Nichols and share any 
future observations with the committee as appropriate.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, U.S. Transportation Command?
    Answer. The mission of the Commander in Chief, United States 
Transportation Command is to provide air, land, and sea transportation 
for the Department of Defense (DOD), both in time of peace and time of 
war. To accomplish this mission, for day-to-day execution, the 
Commander in Chief, U.S. Transportation Command relies on U.S. 
Transportation Command's Component Commands: the Air Force's Air 
Mobility Command (AMC); the Navy's Military Sealift Command (MSC); and 
the Army's Military Traffic Management Command (MTMC). To accomplish 
this mission requires leadership of a blend of active and Reserve 
Forces, civilian employees, and partnership with commercial industry to 
provide mobility forces and assets in a force structure continuum 
designed to make a seamless transition from peace to war.
    That said, the number one mission of the Commander in Chief, United 
States Transportation Command is to provide strategic mobility support 
to the regional CINCs during crises. Simply put, the U.S. 
Transportation Command wartime mission has three objectives:

    1. Get the warfighter to the fight.
    2. Sustain the warfighter during the fight.
    3. Bring the warfighter home after the fight is done.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Since my commissioning as an Air Force officer in 1967, I 
have been blessed with a host of opportunities and experiences, as well 
as with some of the finest commanders, bosses, teachers, mentors, role 
models and friends that the Services have ever produced. From July 1997 
to October 1998, I commanded half of AMC's airlift and tanker aircraft, 
supporting global mobility operations worldwide. Prior to that 
assignment I had served 2 years as the commander of Headquarters 
Military Airlift Command's Airlift Control Center and later as 
commander, Headquarters Air Mobility Command's Tanker Airlift Control 
Center. This assignment was followed by almost 2 years as the U.S. 
Transportation Command director of operations and logistics. 
Additionally, I have twice served as a wing commander for an airlift 
wing, and as director of programs and evaluations and deputy chief of 
staff for installations and logistics at Headquarters U.S. Air Force. 
As the Vice Chief of Staff of the Air Force, I had direct, personal and 
frequent contact with the SECDEF, CJCS, all the CINCs and the Service 
Chiefs on many major issues, operations, and planning matters 
confronting all the CINCs, including USCINCTRANS. Throughout these past 
34 years I have watched our military grow and evolve into a force that 
today is recognized as the best equipped, trained, and educated in the 
world--perhaps the finest team of military professionals the world has 
ever known. If confirmed, I will be honored to lead one of the most 
critical components of that team. I am a true believer in the Total 
Force Concept that leverages active, guard, and Reserve component 
forces of all services to meet our national security challenge. The 
command experiences, field training and education I've been fortunate 
to have thus far have prepared me for the tasks ahead. I look forward 
to the opportunity to serve our country and the great men and women of 
the United States Transportation Command.
    Question. What are the most important lessons that you have learned 
as the Vice Chief of Staff for the Air Force?
    Answer. In my role as Vice Chief of Staff of the Air Force, I've 
learned the true value and critical importance of building a cohesive 
team not only within the Air Force, but also with the other Services 
and organizations within the interagency process, as well as the many 
civilian communities that support our Nation's military. If confirmed, 
I will continue to nurture and build the great team at U.S. 
Transportation Command, ensuring our Nation continues to have trained 
and ready mobility capabilities to support the Nation's interests 
anytime, anywhere.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Commander in Chief, 
U.S. Transportation Command?
    Answer. A complete understanding of current Defense Department and 
national transportation issues is essential to my ability to discharge 
these important duties. If confirmed, I will do everything within my 
power to insure I remain ready for this critical duty.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff would prescribe for you?
    Answer. I would anticipate the Secretary and the Chairman to direct 
me to prepare U.S. Transportation Command to meet the supported CINC 
requirements for any contingency. I also believe they would direct me 
to provide the most effective and efficient transportation services 
available in peace or war. All the normal duties and functions of 
command would be directed toward those ends. That said, I stand ready 
to follow any duties or functions assigned.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Commander in Chief, U.S. Transportation Command to the following 
officials:
    The Secretary of Defense.
    Answer. An objective of the Goldwater-Nichols Act of 1986 was to 
clarify the command line to combatant commanders and to preserve 
civilian control of the military. That act stated that the operational 
chain of command runs from the President to the Secretary of Defense to 
the combatant commanders. As such, the Commander in Chief, U.S. 
Transportation Command is directly responsible to the National Command 
Authorities, President and Secretary of Defense, for the performance of 
the defense transportation mission and the preparedness of the command.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense is delegated full power and 
authority to act for the Secretary of Defense and exercise the powers 
of the Secretary on any and all matters for which the Secretary is 
authorized to act according to law. As such, the Commander in Chief, 
U.S. Transportation Command will normally report through the Secretary, 
but will report to and through the Deputy Secretary the same as he 
would the Secretary when the Deputy Secretary is representing the 
Secretary.
    The Under Secretaries of Defense.
    Answer. Under current DOD Directives, Under Secretaries of Defense 
coordinate and exchange information with DOD components, including 
combatant commands, having collateral or related functions. In process 
and in practice, this coordination and exchange is normally 
communicated through the Chairman of the Joint Chiefs of Staff. If 
confirmed as a combatant commander, I will respond and reciprocate 
accordingly.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for C\3\I, Public Affairs and Legislative Affairs, all Assistant 
Secretaries are subordinate to one of the Under Secretaries of Defense. 
This means that any relationship U.S. Transportation Command would 
require with any Assistant Secretary of Defense would be through the 
Under Secretary of Defense for Policy, the Under Secretary for 
Personnel and Readiness, or the Under Secretary of Defense for 
Acquisition and Technology. Since the Assistant Secretaries of Defense 
for C\3\I, Public Affairs and Legislative Affairs are SECDEF's 
principal deputies for overall supervision of C\3\I, Public Affairs and 
Legislative matters respectively, any relations required between U.S. 
Transportation Command and ASD(C\3\I) and ASD(LA) would be conducted 
along the same lines as those discussed above regarding relations with 
the various Under Secretaries of Defense.
    The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is clearly established by Title 10 as the 
principal military advisor to the National Command Authorities (NCA). 
However, he serves as an advisor and is not, according to the law, in 
the chain of command that runs from the NCA directly to each combatant 
commander. The law does allow the President to direct that 
communications between him or the Secretary of Defense and the 
combatant commanders be transmitted through the Chairman and former 
President Clinton directed this to happen though the Unified Command 
Plan. This action keeps the Chairman fully involved so that he can 
execute his other legal responsibilities. Certainly a key 
responsibility is his role as spokesman for the CINCs, especially on 
the operational requirements of their respective commands. While the 
legal duties of the Chairman are many and they require either his 
representation or personal participation in a wide range of issues, if 
confirmed as a CINC, I will have an obligation to keep both the 
Chairman and the Secretary of Defense promptly informed on matters for 
which they may hold me personally accountable.
    The Secretaries of the Military Departments.
    Answer. The Secretaries of Military Departments are responsible 
under Title 10, for the administration and support of the forces they 
have assigned to combatant commands. The authority exercised by a 
combatant commander over Service components assigned to his command is 
quite clear, but requires a close coordination with each Secretary to 
ensure there is no infringement upon those lawful responsibilities a 
Service Secretary alone may discharge.
    The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services have two significant 
roles. First and foremost, they are responsible for the organization, 
training, and equipping of their respective Service. Without the full 
support and cooperation of the Service Chiefs, no CINC can hope to 
ensure the preparedness of his assigned forces for whatever missions 
the NCA directs. Next, as members of the Joint Chiefs of Staff, the 
Service Chiefs have a lawful obligation to provide military advice. 
Individually and collectively, the Joint Chiefs are a source of 
experience and judgment that every CINC can call upon. If confirmed as 
Commander in Chief, U.S. Transportation Command, I intend to pursue a 
full and continuing dialogue with the Chiefs of all four Services, as 
well as with the Commandant of the U.S. Coast Guard.
    Question. The Combatant Commanders.
    Answer. If confirmed, my relationship with the other combatant 
commanders will be one of mutual support, continued dialogue on key 
issues, and frequent face-to-face interaction. In today's security 
environment, an atmosphere of teamwork and complete trust is critical 
to the successful execution of U.S. national policy.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Commander in Chief, U.S. Transportation Command? Assuming 
you are confirmed, what plans do you have for addressing these 
challenges?
    Answer. In my view, in order to provide world-class support for the 
warfighting CINCs as well as meet the DOD's peacetime transportation 
needs, we must have robust capability and readiness--now and in the 
future. While our current National Military Strategy demands we be able 
to provide strategic deployment and sustainment support for two near 
simultaneous major theater wars, we must also prepare ourselves for the 
future. The United States Transportation Command team plays a critical 
role in fulfilling the four operational concepts espoused in the 
Chairman's Joint Vision 2020: dominantmaneuver, precision engagement, 
full dimensional protection, and focused logistics. The challenges I 
see on the horizon for the Defense Transportation System (DTS) are:
    People. There are no more precious resources in the DTS than our 
people. Our soldiers, sailors, marines and airmen must enjoy a quality 
of life that allows them to focus on their military tasks without 
distraction. We are obliged to keep faith with these self sacrificing 
individuals and families by providing an adequate standard of living, 
quality medical care, inflation adjusted retirement benefits, quality 
household goods moving services, respectable housing accommodations, 
and caring family support programs. I salute our Congress for its 
continued support in all these areas and I ask for your continued 
assistance in championing initiatives that reassure our troops that 
they are indeed our number one priority.
    Readiness. While overall military end strength numbers continue to 
drop, the requirements and demands of today's contemporary 
international security environment remain very high. The pace of 
activity in the DTS in the post Desert Shield/Desert Storm era, in 
support of mobility operations worldwide, continues at an almost 
wartime level of effort. We must curb the impacts of this high OPTEMPO 
by improving our efficiency and carefully monitoring the day-to-day 
demands and requirements placed on the DTS. Specifically, ensuring the 
command remains ready will require continued focus on the readiness of 
air mobility, sealift, forward presence, partnerships with industry, 
and Antiterrorism and Force Protection (AT/FP).
    Modernization. U.S. Transportation Command's modernization efforts 
are focused on being able to fully meet America's strategic mobility 
requirements, across the spectrum of operations, while simultaneously 
reducing risk, ensuring future readiness, and providing a framework for 
meeting future MRS-05 requirements. Continued acquisition of the C-17, 
upgrade of our C-5 and KC-135 fleets, standardization and modernization 
of our C-130 fleet, completion of existing sealift programs, 
improvements to the network of bases which comprise our global 
transportation infrastructure, and upgrades to the tremendous 
capability enhancers inherent in our transportation information systems 
capability, are all key pillars of this comprehensive modernization 
program. Additionally, the command is looking well ahead to identify, 
develop, and program projects for the inevitable future 
recapitalization of aging air mobility and sealift systems, as well as 
our global transportation infrastructure.
    Process Improvements. U.S. Transportation Command processes, the 
collection of rules and procedures which govern day-to-day business 
practices, are under constant revision as the command seeks to improve 
the speed and reliability of customer service. The goal is a set of 
``most effective and efficient'' processes that are applicable across 
the entire spectrum of our activities, from interaction with our 
commercial transportation providers to our ``warfighter CINC'' 
customers. Whether the issue is information technology, supply-chain 
management, doctrine or training, U.S. Transportation Command is 
constantly searching for the best business practices available today. 
These efforts must be continued to ensure the future viability of the 
DTS.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander in Chief, U.S. 
Transportation Command? If confirmed, what management actions and time 
lines would you establish to address these problems?
    Answer. The most serious problem facing us in the mobility business 
is the daily challenge of meeting the readiness needs of our theater 
CINCs. While we have done a superb job of meeting these needs on a 
daily basis over the years since Operations Desert Shield and Desert 
Storm, our capability to continue meeting this challenge, at the levels 
we are sustaining, is very fragile. We must be ever vigilant in our 
struggle to keep our forces the best organized, trained, and equipped 
in the world. The challenges are many: maintenance of an adequate 
quality of life, modernization of our equipment and facilities, and 
controlling an escalating OPTEMPO in the face of level funding and 
personnel fielding. I believe we can meet these challenges, and if 
confirmed, I look forward to working with the members of this committee 
to do just that. As far as a time line goes, I can only say that I see 
this as a continuing challenge which, with your approval, I will 
formally pick up--with enthusiasm--on day one.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Commander in Chief, U.S. 
Transportation Command?
    Answer. Like my predecessor, I believe U.S. Transportation 
Command's approach to posturing (and improving) itself to be able to 
meet DOD's transportation mission today and tomorrow requires 
flexibility and initiative, and must be guided by the following four 
basic themes:

        <bullet> Theme one: Maintaining readiness to perform our global 
        mobility mission;
        <bullet> Theme two: Continuing modernization and upgrade of 
        aging equipment and infrastructure;
        <bullet> Theme three: Improving key processes in the DTS; and
        <bullet> Theme four: Investing in the care and quality of U.S. 
        Transportation Command's most valuable resource--its people.
                           lift requirements
    Question. One of the principal shortfalls faced by the United 
States military is the ability of our lift assets to support two major 
theater wars. While we have made great efforts to eliminate the 
deficiency in lift assets, this shortfall continues to emerge as one of 
the greatest threats to our ability to successfully execute the 
National Military Strategy.
    If confirmed, what actions will you take to ensure that we have 
sufficient lift assets to support the combat forces' execution of the 
National Military Strategy?
    Answer. USTRANSCOM is sized as a 1 MTW mobility force. As long as 
the command executes current programs, sealift is in acceptable 
condition, although there is a need for specialty ships such as heavy 
lift sealift. Airlift is the most pressing challenge. As MRS-05 
validated, an increase is needed to the capability of our airlift fleet 
(54.5 MTMs) through additional C-17s and modernization of our C-5s. 
Initial review of the new strategy, coupled with Service transformation 
efforts, leads to conclusions that strategic mobility will be more 
demanding not less. Therefore, the MRS-05 conclusions are the minimum 
improvements needed.
    As USCINCTRANS, I will continue advocating for additional C-17s and 
a robust C-5 RERP program. I will also continue to pursue the 
possibility of commercial BC-17s augmenting our organic fleet. The time 
is now to make a commitment to a new 60 aircraft Multi-Year Procurement 
(MYP) in order to get these additional C-17s at the best possible 
price.
                                 threat
    Question. Do you believe that projected changes in the threat and 
in overseas bases should affect the mix of U.S. Transportation 
Command's strategic mobility triad of prepositioned ships, airlift, and 
sealift?
    If so, how should the current mix be changed?
    Answer. Although the Mobility Requirements Study 2005 (MRS-05) 
assumed accomplishment of all overseas infrastructure projects that are 
currently programmed, air and sea port availability and capability 
still remain a concern. Past and present demands have strained the 
overseas air mobility infrastructure facilities and raised questions 
about their sufficiency to meet the National Military Strategy. 
USTRANSCOM has focused its most important current infrastructure 
efforts on recapitalization of runways, ramps, and fuel systems at en 
route airfields. In keeping with the findings of USTRANSCOM's en route 
Studies, the command has worked with USEUCOM, USPACOM, and DLA to 
develop recapitalization plans. For example, DLA has allocated 
approximately 85 percent of its fuels MILCON fiscal year 1999-2004 POM 
to en route projects.
    September 11 drove home to all Americans that we face a changing 
threat. Be assured that USTRANSCOM is ready to respond to the call to 
deploy forces in response to those atrocities. To that end, I'm 
confident that the command's prepositioned ships, airlift, and sealift 
assets are properly configured and prepared to support Operations Noble 
Eagle and Infinite Justice. USTRANSCOM continues efforts to counter the 
threat from weapons of mass destruction, such as chemical and 
biological weapons, at our aerial and seaports. Such weapons can 
severely hinder strategic mobility industrial infrastructure and 
particularly threaten the civilian partners in the CRAF and VISA 
programs. Consequently, USTRANSCOM has become one of DOD's strongest 
proponents for improved detection, protection, and decontamination 
capability. The command is actively engaged in several joint projects 
intended to address the WMD threat, including the development of 
national standards for decontamination. Additionally, USTRANSCOM's 
Critical Infrastructure Protection (CIP) program is underway, stemming 
from Presidential Decision Directive 63. The CIP program, in 
coordination with other DOD agencies, Joint Staff, Services, geographic 
CINCs, and Department of Transportation (including MARAD and U.S. Coast 
Guard), is actively identifying assets critical to the Defense 
Transportation System (which includes those assets of our commercial 
partners). Vulnerability assessments will then be conducted at critical 
transportation locations, with necessary follow-on actions taken to 
ensure that those critical assets are protected.
                     port and airfield availability
    Question. In your opinion, are sufficient port and airfield on-load 
and off-load assets available in CONUS and in the most likely conflict 
areas to rapidly move the equipment and supplies that might be required 
over the full spectrum of conflict?
    If not, what steps do you believe should be taken to improve this 
situation?
    In your opinion, are the conditions of these facilities adequate to 
support the strategic deployments of our forces? What is the condition 
of the en route system and their ability to refuel and support the 
airlift mission?
    Answer. Assessments of the sufficiency of CONUS and overseas ports 
and airfields to support strategic mobility are highly ``scenario 
dependent.'' Overseas, whether mobility supports a small-scale 
contingency (SSC) or a Major Theater War (MTW), our forces require 
access to host nation ports and airfields. In some cases, particularly 
for the air mobility en route system, our forces require friendly 
nation airfield resources at locations that may or may not be directly 
involved in the contingency. For example, any U.S. response in 
Southwest Asia will require air mobility en route basing in Europe and 
will usually require access to peripheral Gulf State airfields as well; 
any U.S. response in the Pacific Rim becomes problematic without 
Mainland Japan and Okinawa support. If the SSC occurs in areas 
accessible from our established Airlift en route systems, our ability 
to respond effectively is reasonably assured with host nation 
concurrence. If the SSC occurs in areas not in line with our Airlift en 
route system, response time would be difficult (Africa, South America, 
areas of Southeast Asia). USTRANSCOM should continue to work with the 
geographic CINCs to ensure the Strategic Mobility requirements for 
overseas ports and airfields are met in planning for the total range of 
conflict. The en route system is aging but it is currently funded for 
upgrades to meet the future demands that are outlined in MRS-05. 
USTRANSCOM should also continue to support the Army and Navy in the 
development of a Joint Logistics Over-the-Shore capability for those 
scenarios where fixed port facilities are degraded or denied by enemy 
forces.
    In CONUS, if the Services fund the MRS-05 shortfalls identified, 
(to include depot shortfalls), I believe throughput constraints and 
availability of ports and airfields for the most demanding Major War 
requirements will be addressed. The Army Power Projection Program 
should improve key installations, ammunition depots and ports. This 
program provides for rail, airfield, and staging area improvements, 
completion of key projects at the West Coast containerized ammunition 
port (Concord), and other installation-specific projects. Acceleration 
of many of these projects is needed. Interfaces between the Services 
must be improved for power projection of one service from another 
service's installation. Funding of Container Handling Equipment (CHE) 
is also necessary for movement of containerized cargo at installations 
and ammunition depots. Also, the National Port Readiness Council is 
functioning and working closely in planning with DOT and the Nation's 
commercial port industry to ensure wartime requirements can be met in 
order to minimize our permanent presence at commercial ports.
    The present inventory of aircraft loaders, called Material Handling 
Equipment (MHE), used at aerial ports for onloading and offloading U.S. 
military and Civil Reserve Airlift Fleet aircraft is still very old and 
unreliable. That said, I believe the new Air Force 60K loader and Next 
Generation Small Loader (NGSL) programs will provide the equipment 
needed to meet future MHE requirements. An additional piece of critical 
equipment is the 463L All-Terrain 10K forklift. Their numbers are high, 
and they too require an aggressive replacement program. This piece of 
equipment is critical to deployed operations in rough or unimproved 
environments.
    We continue to work closely with geographic CINCs on Host Nation 
Support issues to support onward movement of equipment and supplies 
from theater ports to the final destination.
                              tanker crews
    Question. During the Kosovo operation, we found that we had 
sufficient tanker assets available to support the air campaign, but 
that, at times, there were limitations in having sufficient crews 
available for these tankers to support operations due to a number of 
considerations, including crew rest requirements.
    What steps do you intend to take to ensure that there will be 
sufficient tanker crews available to support air campaigns in future 
conflicts?
    Answer. USTRANSCOM and AMC recognize that the KC-135 crew ratio of 
1.36 for the AMC force and 1.27 for all others was based on a Cold War 
scenario and is not adequate for today's increased mission demands. 
This was proven during the Gulf War when we operated with a 1.5 crew 
ratio and again in Kosovo when we operated at a 1.8 crew ratio. Only 
the limited nature of these conflicts kept us from experiencing 
shortages in crews. To further quantify the requirement for tankers and 
crews AMC conducted a thorough Tanker Requirements Study. In an attempt 
to rectify the shortfall in crews and maintenance identified by these 
events and study, a fiscal year 2002 POM initiative was submitted for 
additional maintenance personnel and for 75 additional aircrews. 
Unfortunately, the positions were either not funded or were only 
approved without an increase in overall military end-strength. We have 
continued to voice our concern by raising the issue through the Joint 
Requirements Oversight Council and the Joint Warfighting Capabilities 
Assessment.
    As USCINCTRANS, I will continue to advocate for additional KC-135 
maintenance personnel and a crew ratio increase. As we all work through 
the details of the new strategy laid out in the QDR and DPG, we will 
determine if tanker crew ratio will need to be increased even more. I 
realize the competition for scarce dollars will always be keen and I, 
along with all national leaders, will be forced to choose between 
myriad critical programs. That being said, my goal will be full funding 
of additional tanker personnel, to include the commensurate end-
strength increase.
                          ready reserve force
    Question. U.S. military strategy depends on having sufficient 
civilian merchant mariners available in a conflict to operate the ships 
in the Ready Reserve Force (RRF). There are continuing concerns that 
the combination of the reduction in numbers of U.S.-flag merchant ships 
and the smaller sizes of crews on these ships could leave the United 
States with an inadequate pool of trained manpower upon which to draw 
in wartime.
    Do you believe that this is a real problem?
    Answer. Yes. However, it is a problem that USTRANSCOM is aware of 
and is actively working with the Maritime Administration, the U.S. 
Coast Guard, the sealift industry, maritime unions, and DOD. The 
decline in the number of U.S. Flag ships has definite consequences for 
our national security capabilities. Today, we can meet manning 
requirements for the Ready Reserve Fleet. We will continue to support 
ongoing efforts to ensure our manning capability for the future. The 
assignment of partial crews to the highest priority vessels (ROS-4, 
ROS-5) has improved the manning of RRF vessels, as well as the material 
readiness of the fleet. Now, two thirds of the ships in the RRF are 
partially crewed. I also support the Maritime Security Program which I 
view as essential to maintaining a nucleus of U.S. flag ships that will 
continue to employ American crews. Other programs such as the Jones Act 
(domestic trade) and cargo preference help keep ships under the U.S. 
flag (with American crews) and are key to maintaining the pool of 
highly trained mariners.
    Question. What steps would you propose to take to solve any 
shortages that you might identify in manning the RRF?
    Answer. I will continue to foster the strong partnership USTRANSCOM 
has with the U.S. maritime industry and using this partnership as a 
spring board to keep moving this difficult mariner issue forward. As 
recently as last week, USTRANSCOM held a Video Teleconference with VISA 
carriers to discuss current events (Operations Noble Eagle, Infinite 
Justice) and exchange ideas about supporting potential future 
operations. We continue to work the mariner issue hard with MARAD, the 
U.S. Coast Guard, the carriers and the maritime unions. A key issue is 
identifying active merchant mariners and licensed/certified mariners 
that are no longer sailing; the goal is a consolidated database 
identifying available and qualified mariners to crew organic sealift. 
We also encourage all licensed and documented mariners to maintain 
their licenses and/or documentation. This partnership is healthy and is 
an absolute necessity in these uncertain times.
                          prepositioned ships
    Question. If confirmed, what actions would you take to ensure U.S. 
Transportation Command's support of the Army and Marine Corps' 
strategies for afloat prepositioned ships?
    Answer. In my view, the use of equipment and supplies strategically 
positioned afloat near potential hot spots is a critical component of 
the new strategy that requires the elements of speed and flexibility. 
The services must continue to identify their specific prepositioning 
requirements including special purpose shipping (Float-on/Float-off, 
Heavy Lift), and we must ensure we have the proper mechanisms (e.g., 
acquisition, contracting) to provide the right types of vessels and 
crews, that enable them to meet their mission. In view of recent 
events, we will place more emphasis on the force protection aspects of 
this relationship.
                           c-5 modernization
    Question. Over the past several months, significant problems have 
arisen with the readiness of the C-5 aircraft. These problems have 
reduced the availability of this airframe which has a direct impact 
upon the ability of our strategic airlift assets to support the 
National Military Strategy.
    The Air Force has been pursuing a two-pronged approach of upgrading 
avionics for all C-5s, while, for the time being, only re-engining the 
newer C-5B aircraft. General Robertson testified to the committee 
earlier this year that he believed that we needed to upgrade and re-
engine all C-5 aircraft, and buy more C-17s in order to meet the lift 
requirements USTRANSCOM faces.
    What is your assessment of the requirements for additional airlift, 
and the programs needed to meet those requirements?
    Answer. I wholeheartedly agree with General Robertson's assessment. 
MRS-05 clearly validated 54.5 MTM/D as the absolute minimum strategic 
airlift requirement. That is an increase of almost 5 MTM/D from the 
MRS-BURU requirement and an increase of 10 MTM/D over what AMC is 
actually capable of today, recognizing that current capability is 
reduced due to poor C-5 reliability. This leads to that two-pronged 
approach that is so vital to meeting critical airlift needs. The C-17 
and C-5 are essentially the only two airlifters capable of carrying 
oversize and outsize cargo.
    First let me discuss the C-5. As I mentioned earlier and the 
committee is very much aware, we have been experiencing serious 
degradation in the C-5 mission capable (MC) rate. The Air Force has 
been pursuing the C-5 Reliability Enhancement and Re-Engining Program 
(RERP) to increase the C-5 MC rate from below 60 percent to at least 75 
percent. Due to the affordability of C-5 RERP, coupled with the 
extensive structural service life remaining on the airframe, we feel 
strongly about pursuing the RERP program. The best way to approach the 
C-5 RERP program is to RERP the C-5Bs first and then tackle the C-5As. 
The 50 C-5Bs are only 12 years old, they are the ones that are equipped 
with air defensive systems, and they fly the most on a day-to-day 
basis. Once we see the success of the RERP program on the C-5Bs, then 
we can make a decision on modifying the 76 35-year old C-5As.
    The second thing we absolutely must do to meet the 54.5 MTM/D 
minimum requirement is purchase additional C-17s. While some may wonder 
if the commercial sector can provide part of the 5 MTM/D increase via 
the CRAF program, that is not possible. This is an over and outsized 
requirement that can only be met by organic airlift; that leads us to 
additional C-17s being the practical choice. Our analysis tells us that 
we need an additional 50-60 organic C-17s, depending on what decisions 
we make on the C-5 RERP. The most bang for the buck is a 60 aircraft 
multi-year procurement (MYP) and the time to strike on making a firm 
commitment to this new MYP is now. Boeing's supply line will begin to 
close 1 Oct. 2001 without a follow-on decision by DOD. If we delay 
beyond October 1, our cost per aircraft will grow significantly due to 
the need to restart sub-contractor production lines that are scheduled 
to shut down soon. Additionally, if the commercial sector finds there 
is a niche market for the BC-17, we expect that small fleet will 
augment our organic fleet.
    In summary, an integrated solution that fixes the C-5 and acquires 
additional C-17s via a new MYP is essential to meeting the Nation's 
strategic airlift needs.
                      movement of household goods
    Question. The committee is aware that the Department has launched a 
Full Service Moving Project (FSMP) test program for handling the 
transportation of household goods for permanent changes of station.
    Do you believe there is sufficient funding in the budget request to 
implement this program?
    Answer. No. Due to funding constraints the Military Services 
unanimously have decided to cease participation in the Full Service 
Moving Project (FSMP) effective September 30, 2001. Initial estimates 
are the program could be as much as 70-80 percent higher than the 
current program. Historically, DOD has spent approximately $1.7 billion 
annually on the current program.
    Question. When will the Department have sufficient information upon 
which to base a decision about whether to seek wider implementation of 
this program?
    Answer. USTRANSCOM is tasked with the independent evaluation of 
three pilot programs (the FSMP pilot, the Navy Sailor Arranged Move 
(SAM) pilot and the Military Traffic Management Command (MTMC) pilot). 
Data collection is complete for the MTMC and SAM pilots, FSMP is 
ongoing. The Military Services agreed to continue participation in the 
pilot through the peak season (Jun-Jul 2001) pick-ups and deliveries. 
After data collection and analysis is complete (Dec 2001), USTRANSCOM 
will provide a recommendation to the Office of the Secretary of Defense 
for a new personal property program, which could be adoption of one of 
the pilots, but most likely will be a combination of features from 
each. Our recommendation is scheduled to be complete in Jan 2002.
    Question. In your opinion, how does this program compare to the 
other pilot programs for improving the movement of household goods?
    Answer. We have not had a chance to collect and analyze sufficient 
data to draw any conclusions on the FSMP pilot program at this time. We 
expect to complete our recommendation in Jan 2002.
   selection of officers for assignment as commander in chief, u.s. 
                         transportation command
    Question. In S. 1416, the committee included a provision that, if 
enacted, would express the sense of Congress that when deciding on 
officers to be nominated to the position of Commander in Chief, U.S. 
Transportation Command, the Secretary of Defense shall consider 
nominating highly-qualified officers from the ranks of the Army and 
Marine Corps. The rationale for this provision is that USTRANSCOM and 
its component commands could benefit from the appointment of an officer 
selected from the two branches of the Armed Forces that are the primary 
users of their transportation resources.
    What is your view of this provision?
    Answer. The Commanders of the Unified and Specified Combatant 
Commands are responsible to the President and the Secretary of Defense 
for accomplishing the military missions assigned to them and exercise 
command authority over the forces assigned as directed by the Secretary 
of Defense. Based upon the requirement of the particular command, the 
Secretary of Defense should nominate the best qualified officer for 
command, regardless of service. In today's joint environment all 
services must work together for mission accomplishment and it is 
imperative that each command has the most highly qualified officers in 
leadership positions.
                             theater access
    Question. One of the principal concerns when preparing for future 
operational deployments is the prospect of access denial, i.e., denial 
of access to ports and airfields in the theater of operations. This 
could pose a significant challenge to USTRANSCOM's ability to support 
the deployment and replenishment of forces in a major theater war.
    What actions would you propose to better prepare the U.S. military 
for the prospect of fighting in a theater of operations where access to 
critical ports and airfields is denied?
    Answer. Access denial is already the toughest challenge we face 
today. Conducting reception, staging, onward movement and integration 
(RSO&I) of forces into a theater is tough business in countries with 
modern facilities, let alone when access is denied.
    First, USTRANSCOM will continue to work with geographic CINCs to 
identify alternative basing opportunities within their AORs should we 
be denied access to current en route basing. Working with our allies in 
peacetime to ensure access is our first line of defense.
    Second, USTRANSCOM must continue to develop Joint Logistics Over-
the-Shore (JLOTS) capability to provide the ability to operate in 
degraded ports or conduct in-stream operations. These operations 
include Army and Navy lighterage, Auxiliary Crane Ships (T-ACS) from 
the Ready Reserve Fleet, our Offshore Petroleum Discharge Systems 
(OPDS), and the trained units to execute these difficult operations.
    Third, USTRANSCOM will work with the Navy on the Heavy Sealift 
Study to ensure the specialized strategic lift to move Army watercraft, 
Navy Mine Countermeasure vessels, and USCG patrol craft. These assets 
are essential for opening ports and force protection during normal or 
port denial operations.
                          combating terrorism
    Question. Ensuring that the various Federal response teams arrive 
at a domestic WMD incident in a timely fashion is of critical 
importance.
    In your view, does USTRANSCOM have sufficient lift assets to ensure 
appropriate DOD support in a timely fashion?
    Answer. First it is important to recognize that USTRANSCOM is sized 
as a 1 MTW mobility force. So under normal peacetime operations, the 
command will generally have sufficient lift assets to meet this 
mission. The challenge is when other events are occurring around the 
world, such as major wars and small-scale contingencies (SSCs). Airlift 
is the most pressing challenge because of the early demands placed on 
the fleet during any crisis. Our initial review of the new strategy 
leads to the conclusion that strategic mobility requirements will be 
even more demanding than MRS-05, in part due to the likelihood of a 
homeland defense response occurring concurrently with major wars 
overseas. We will have to rely on other transportation modes (rail, 
truck) to free up critical airlift.
    Question. If confirmed, how would you ensure that DOD has 
sufficient lift assets to rapidly deploy its own various response units 
in the event of a domestic WMD event?
    Answer. Let me reiterate that I will ensure the homeland defense 
options are integrated into future plans. We do not know the 
requirements for this option today. Ensuring DOD has the appropriate 
lift assets will require close inter-Departmental planning and 
coordination with FEMA, FBI and other agencies that respond to such 
events.
            mobility requirements study for fiscal year 2005
    Question. The Mobility Requirements Study for Fiscal Year 2005 
(MRS-05), which was delivered to Congress this year, indicates the 
major weakness in strategic lift assets is in the area of strategic 
airlift. One of the studies that was used in the development of this 
finding was the Oversize-Outsize Cargo Requirements Study, which has 
yet to be delivered to Congress.
    If confirmed, will you ensure that this study is delivered to 
Congress?
    Answer. As General Robertson reported to the Senate Armed Services 
Committee, Seapower Subcommittee on 26 Apr 2001, the study is done. At 
that time he also shared the results with you; I will be willing to do 
the same. As the strategic review (QDR) is wrapped up and integrated in 
OSD, I would then expect that the O&O AoA would be released.
    Question. Since MRS-05 did not take into account the transformation 
efforts of the services, particularly that of the U.S. Army, nor any 
changes to the National Military Strategy, do you think that the 
identified shortfall in strategic airlift is still valid?
    Answer. MRS-05 did not include current service transformation 
efforts nor the impact of the emerging National Military Strategy 
(NMS). However, it does provide a moderate risk single MTW strategic 
lift capability that can cycle to a second MTW while concurrently 
supporting the warfighting CINC's intra-theater requirements, NCA 
directed special operations missions, missile support to allies, and 
some support to CINCs not engaged in warfighting. Therefore, I would 
characterize the MRS-05 moderate risk solution (54.5 MTM/D) supported 
by the Chairman, Service Chiefs and CINCS as a valid building block for 
the future until we work out all the details of the new NMS. I should 
also note here that as we shift from the current threat based strategy 
to the new capability based construct, we are not only changing the 
shape of forces, but the response times are faster (Service 
Transformation). Additionally, the emerging strategy has new 
overlapping requirement for homeland defense, deterrence in four 
critical regions, the need to win decisively, defeat efforts in another 
theater, and support SSCs (non-critical areas). Bottom line, I see the 
mobility requirements for the new strategy as being at least as 
demanding as the current strategy.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. Our Nation was founded on the principal of civilian 
control of the military. I am honored to have the opportunity to serve 
in this challenging position, and I look forward to periodically 
appearing before this committee to keep you personally apprised of the 
readiness status and mission related requirements of the United States 
Transportation Command.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?Answer. 
Yes. In 1967, I raised my right hand and swore then to ``support and 
defend the Constitution of the United States''; my commitment to that 
ideal has only grown stronger over the past 34 years. I am keenly aware 
of the responsibility I have to provide candid, honest information to 
my superiors, regardless of the pressures or politics surrounding the 
situation.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander in Chief, U.S. 
Transportation Command?
    Answer. Yes. If confirmed, I look forward to appearing and 
testifying before this committee at both annual posture hearings and on 
any other specific issues you may require. I view frequent and open 
interaction with this committee and the committee's staff as vital to 
the successful resolution of United States Transportation Command's 
issues--now and into the future.
    Do you agree to ensure that testimony, briefings and other 
communications of information are provided to this committee and its 
staff and other appropriate committees?
    Answer. Yes. If confirmed, I will ensure that this committee and 
other oversight committees are provided with required and requested 
information in as accurate and as timely a manner as possible.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                           en route structure
    1. Senator Thurmond. General Handy, a key factor in the deployment 
of our forces, and I assume a major concern to you, as the soon to be 
CINC TRANSCOM, is the en route infrastructure. This infrastructure 
provides the essential fueling, repair and crew rest facilities that 
are essential to any deployment.
    What is the condition of the bases that make up our en route 
infrastructure? Does the United States have sufficient access to 
foreign bases to facilitate our deployments?
    General Handy. The condition of the bases that make up our en route 
infrastructure is currently less than adequate. Although great effort 
has been applied to improve our bases, they will not be adequate any 
earlier than fiscal year 2006. After years of neglect, the United 
States Transportation Command (USTRANSCOM), in conjunction with the 
United States European Command (USEUCOM) and the United States Pacific 
Command (USPACOM), began drawing attention to and focusing resources 
toward our en route bases in 1997. Our efforts are just now beginning 
to pay off as both the Services and the Defense Logistics Agency have 
made the repair of the en route bases a top priority. Repeated mobility 
requirements studies sponsored by the Joint Staff have validated the 
need for a robust en route system. To meet those validated 
requirements, we currently have repair or enhancement projects underway 
or programmed at all 13 of our designated en route locations. These 
projects total over $1 billion. As these projects progress, we will 
steadily rebuild our aged en route infrastructure and more closely 
approach the goals stated in the mobility requirements studies. While 
the overall health of the en route system is improving, we should keep 
in mind that the en route system we are building today is focused on 
the old two major theater war concept. Thus, we are successfully 
building up our en route infrastructure to deploy forces to Northeast 
Asia and Southwest Asia, but we have yet to design a system that 
successfully blankets the globe. As our current conflict shows, our en 
route system forms a solid base from which to begin our deployment, but 
we still need to augment our designated 13 bases to facilitate our 
global efforts. Wherever we choose to deploy forces outside the 
Continental United States, we will find we are short of sovereign 
United States territory.
    Our current situation illustrates our dependence upon access to 
foreign bases. In todays war effort, many of our allies have stepped 
forward to offer their bases for our use. Many are taking great pains 
to support us by waiving normal peacetime restrictions on operating 
hours and relaxing notification requirements for access and overflight 
clearances. We have not always been this fortunate, nor can we plan on 
this being the case for future engagements. The condition of our en 
route bases is improving, but we are a long way from the finish line.

                            joint use bases
    2. Senator Thurmond. General Handy, as the Department of Defense 
focuses ever more on force protection and strengthens the security at 
our military bases, what concerns do you have regarding our joint use 
bases, such as Charleston Air Force Base?
    General Handy. The September 11 attacks and the ongoing threat 
situation within the United States have changed our whole mind-set 
regarding ``business as usual.'' I'm confident we have already moved in 
the right direction to bolster the security posture at these and all of 
our facilities. I'm equally confident that we can and will continue to 
improve that posture through close coordination with our civilian 
counterparts. The unfortunate reality is, however, that despite our 
best efforts to make ourselves a hard target, we can not guarantee that 
we will be able to prevent or thwart a well-planned terrorist attack. 
We must re-evaluate all of our security practices, and require higher 
standards and closer oversight to ensure the security of our joint use 
bases, where controlling access to our operations is inherently more 
challenging. Our wing commanders must be fully engaged with their 
counterparts to ensure a closely coordinated relationship and security 
plan. Much of our focus will be on the personnel providing force 
protection oversight on the civilian side, in terms of selection 
criteria, background checks, training, and equipment carried to perform 
duties. I can share a few generalities about the current situation at 
the United States Transportation Command's four joint use bases. 
Commercial airports throughout the U.S. are in the process of 
strengthening their security posture. This is the case at both 
Charleston International Airport and Mid-America Airport, which are 
joint use with Charleston Air Force Base and Scott Air Force Base 
respectively. The situation at McConnell Air Force Base in Kansas is 
slightly different, where the base shares access with Boeing and Cessna 
Aircraft Corporations. These companies have contracts with other 
nations, so complete confidence in their security program and our 
ability to integrate it will be our goal. Lastly, at Dover Air Force 
Base, we have the luxury of directly influencing use of the Civil Air 
Terminal, which allows very restricted use by commercial aviation 
assets. Current agreements allow for closure of the terminal during 
necessary situations. This closure has been implemented as part of the 
current Force Protection Condition.

                         deployment facilities
    3. Senator Thurmond. General Handy, the military departments, 
especially the Army, have made significant strides in improving their 
deployment facilities at the military installations. However, we depend 
heavily on commercial ports and railroads to deploy our logistic and 
heavy forces.
    What is the capability of our commercial ports and railroads to 
support the deployment of our forces and are they keeping pace with 
modernization?
    General Handy. I am confident our partners in the rail and maritime 
industries can provide the transportation support we need to meet 
deployment requirements. We actively engage both industries to 
communicate our requirements and stay abreast of changes that may 
affect our deployment capabilities.
    The United States Transportation Command (USTRANSCOM) is a member 
of the National Port Readiness Network (NPRN) and the Interagency 
Committee on the Marine Transportation System (ICMTS). Both of those 
national-level forums include Department of Transportation (DOT) 
participants such as the Maritime Administration (MARAD) and the United 
States Coast Guard. They address issues of interest to both the 
Department of Defense (DOD) and industry. Current issues under 
discussion are increased traffic and the resultant demand on existing 
infrastructure, the need to modernize and expand capability to meet 
future cargo flows, and security to counter threats such as natural 
disasters, crime, and terrorist acts. We will continue our active 
participation to ensure DOD's deployment requirements will continue to 
be met in the future.
    Military Traffic Management Command's Transportation Engineering 
Agency (MTMC TEA) effectively manages the Ports for National Defense 
(PND) and Railroads for National Defense (RND) programs. The PND 
addresses the ability of our commercial strategic seaports to support 
deployments and the RND similarly examines the rail system. The RND 
includes the Strategic Rail Corridor Network (STRACNET) and its 
connectors that provide access to our military installations. The RND 
program entails close coordination between MTMC TEA and the Federal 
Railroad Administration, the American Association of Railroads, and 
specific rail operators. We also maintain close liaison with our 
commercial rail partners through the National Defense Transportation 
Association Surface Committee. Combined, those organizations continue 
efforts to ensure that as railroads modernize, the capability that DOD 
requires will be there when we need it.

                     change in our strategic focus
    4. Senator Thurmond. General Handy, earlier this year, the 
Department of Defense (DOD) suggested that the focus of our defense 
strategy would shift from Europe to Asia. Because of our historic focus 
on Europe, we have in place facilities to support deployments into that 
region.
    What are our capabilities to deploy and stage forces to support our 
focus on Asia?
    General Handy. If we were called upon today to deploy forces in 
support of a Northwest Asia contingency, I am confident we would be 
able to answer the call. If called upon to support a Major Theater War 
effort to a different location in Asia, we would be challenged to do so 
given the geography of the Asian continent. Efforts are currently 
underway to identify additional key areas and possible scenarios in the 
Pacific. As those efforts mature we will perform detailed analysis to 
determine our infrastructure requirements to support the desired 
mobility throughput.
    To support deployments to Asia--which historically has meant 
supporting a major theater war in Korea--we have relied on our system 
of en route military air bases, some civilian airfields, and a few key 
naval installations and seaports. Our en route air bases are located in 
Alaska, Hawaii, Guam, and Japan. We group the airfields into a North-
Pac route through Alaska and Japan, and a Mid-Pac route through Hawaii, 
Guam, and Okinawa, Japan. The civilian airfields are in the Continental 
United States and Japan. Outside Japan, we frequently stage airplanes 
and naval ships through Singapore and Thailand. Both countries have 
been most gracious partners and Singapore has even built a pier large 
enough to accommodate ships up to and including aircraft carriers.
    The critical seaports for deployment and sustainment support to 
Asia are our West Coast ammunition ports at Concord, CA and Indian 
Island, WA. Many of our east and Gulf coast commercial ports, (such as 
Savannah, GA; Beaumont, TX; Corpus Christi, TX; and Jacksonville, FL) 
would play a key role in supporting early deployment of combat units. 
Pearl Harbor, HI, and our commercial ports in Tacoma, WA, San Diego, 
CA, Long Beach, CA, and Oakland, CA, would also play a major role in 
early deployments and would continue to support later deployments and 
sustainment.
    USTRANSCOM aggressively works Pacific infrastructure issues in 
concert with the Pacific Command and the Defense Logistics Agency (DLA) 
through the Pacific en route Infrastructure Steering Committee 
(PERISC). The PERISC's charter requires it to ensure we have adequate 
infrastructure in the Pacific to support requirements levied by both 
the mobility requirements studies sponsored by the Office of the 
Secretary of Defense, as well as chose specified by the supported 
Commander in Chief through his approved operation plan. To meet those 
requirements, the Pacific Command, in conjunction with United States 
Transportation Command and DLA's Defense Energy Support Center, has 
embarked upon an aggressive program to repair its aged infrastructure; 
the bulk of these projects involve strategic airplane parking ramps, 
fuel hydrants, and fuel storage facilities. Improvements in these 
critical areas will increase the number of airplanes that can transit 
our few bases and decrease the amount of time they spend waiting on the 
ground to refuel. The repair projects already underway or programmed 
will ensure our fragile en route system does not fail when we need to 
surge in support of a contingency. One area of growing concern is 
movement of munitions outside the Continental United States, primarily 
in the Pacific. We are becoming increasingly constrained in where we 
can transload or transship ammunition. The issue with air delivered 
munitions is a shortage of hot pads and the Navy issue centers around a 
shortage of staging areas to convert containerized ammunition to 
breakbulk. Our PERISC is currently working this issue.
                                 ______
                                 
              Question Submitted by Senator Rick Santorum
                        adequate strategic lift
    5. Senator Santorum. General Handy, Gen. Eric Shinseki, Chief of 
Staff, United States Army, has led the effort to transform the Army 
into a force better able to meet 21st century threats. To meet these 
goals, the Army will need to be quicker on the field of battle and 
quicker to get to the fight. Part of the Chief's vision entails an 
Interim Force of platforms that are C-130 deployable and are able to be 
rapidly transported to the theater of conflict. While the Army has 
embarked on a new platform to meet this vision (a LAV-III variant), it 
is unclear that there is an adequate strategic lift necessary to get 
the Interim Force to the conflict. Do you believe that the United 
States Transportation Command (USTRANSCOM) and/or Air Mobility Command 
has the lift assets necessary to get the Army to the conflict in the 
deployment periods defined by General Shinseki?
    General Handy. Currently, the United States Transportation Command 
(USTRANSCOM) lacks the airlift assets necessary to meet the Army's goal 
of deploying the Interim Brigade Combat Team (IBCT) in 96 hours. While 
the C-130 might be desirable for movement of the deployable force 
within the theater, C-17s and C-5s are the only aircraft capable of 
inter-theater deployment and movement of outsized loads. Even when we 
obtain the recommended airlift increases identified in the Mobility 
Requirements Study 2005 (MRS-05), we will still be challenged to meet 
the 96-hour timeline. The Army transformation will result in a smaller, 
more lethal, and deployable unit. However, the decrease in unit size 
that we are seeing with the IBCT is offset by the more demanding 96-
hour deployment timeline, actually increasing the airlift requirement. 
Airlift assets are only one of the issues impacting faster deployment 
of the Army's IBCT. Today we are teaming with the Army to identify and 
fix a number of challenges to include infrastructure improvements, 
interoperability issues, future equipment design, and the automated 
tools needed to attain the aggressive goal of 96 hours. Needless to 
say, USTRANSCOM will continue working closely with the Army to assess 
the deployment aspects of the IBCT and assist in developing solutions 
to rectify shortfalls.
                                 ______
                                 
    [The nomination reference of Gen. John W. Handy follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 14, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade of indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    John W. Handy, 0000.
                                 ______
                                 
    [The resume of service career of Gen. John W. Handy, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Gen. John W. 
Handy, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John William Handy.

    2. Position to which nominated:
    Commander in Chief, United States Transportation Command and 
Commander, Air Mobility Command.

    3. Date of nomination:
    September 14, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    29 April 1944; Raleigh, North Carolina.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary L. Handy (Fagan).

    7. Names and ages of children:
    Mary K. Handy; Age: 27.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the Executive Branch..
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Daedalian Lifetime Member.
    Air Force Association Lifetime Member.
    Airlift/Tanker Association Lifetime Member.
    Logistics Officer Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the Executive Branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
of Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     John W. Handy.
    This 23th day of July, 2001.

    [The nomination of Gen. John W. Handy was reported to the 
Senate by Chairman Levin on September 26, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 26, 2001.]
                              ----------                              

    [Prepared questions submitted to Adm. James O. Ellis, Jr., 
USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                            Department of the Navy,
                                        Commander in Chief,
                                         U.S. Naval Forces, Europe.
The Hon. Carl Levin,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman, I am greatly honored by the President's 
confidence in nominating me for assignment as Commander in Chief, U.S. 
Strategic Command. I pledge my full support to our Nation, the 
President, Congress, the Secretary of Defense, and the men and women of 
our Armed Forces.
    As requested in your letter of 17 September 2001, I have attached 
my responses to your questions.
            Sincerely,
                                                J.O. Ellis,
                                                Admiral, U.S. Navy.
Attachment:

    cc: Senator John Warner
      Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I strongly support the Defense Reorganization Act of 
1986 and the Special Operations reforms. They have definitely 
strengthened our Armed Forces and the effectiveness of our combatant 
commanders.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe the Department of Defense has vigorously and 
successfully pursued implementation of these important reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most positive aspect is the overall improvement in our 
military operations. The Goldwater-Nichols Act has resulted in much 
needed improvements in joint doctrine, joint professional military 
education, and joint strategic planning. Another important element is 
clarity in the chain of command from the National Command Authorities 
to the combatant commanders and unambiguous responsibility placed upon 
each CINC for execution of mission and preparedness of assigned forces.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes. The law gives combatant commanders sufficient 
authority they need to carry out their assigned missions. This has been 
well demonstrated through the many complex joint operations conducted 
since the legislation was enacted, including the strategic deterrence 
mission of USSTRATCOM.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the National Security Strategy? If so, what areas do you 
believe it might be appropriate to address in these modifications?
    Answer. It is clear that the Goldwater-Nichols Act has profoundly 
improved the performance and capabilities of the American military 
establishment. We have significantly improved our ability to conduct 
combat operations, manage defense resources, streamline management 
practices, and address organizational issues within the Department of 
Defense. The Goldwater-Nichols Act remains an important and effective 
piece of legislation; as a result, I do not believe any major revisions 
are required at this time.
    Question. Based upon your experience as Commander, U.S. Naval 
Forces, Europe and Commander in Chief, Allied Forces, Southern Europe, 
do you believe that the role of the combatant commanders under the 
Goldwater-Nichols legislation is appropriate and that the policies and 
procedures in existence allow that role to be fulfilled?
    Answer. Yes. Unity of command, input into resource allocation, and 
most importantly, the imperative of combatant commanders to plan and 
fight in a joint environment are all provided for while empowering the 
Department of the Navy in its role of organizing, training, and 
equipping naval forces.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, U.S. Strategic Command?
    Answer. The Commander in Chief, United States Strategic Command 
(CINCSTRAT) has responsibility and control for all strategic forces in 
support of the National Security Objective of strategic deterrence. 
CINCSTRAT also exercises combatant command (COCOM) over the 
organization and operation of all assigned forces and headquarters in 
accordance with public law and the policies established by the 
Secretary of Defense. Additionally, he is a primary advisor to the 
Secretary of Defense on strategic issues.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Thirty-two years of service in the United States military 
have fully prepared me for this position through Navy and Joint 
Assignments, in peace, crisis and conflict, alongside the finest 
soldiers, sailors, airmen, marines and coast guardsmen in the world. I 
have commanded an aviation squadron, a deep draft flagship, a nuclear 
aircraft carrier, a carrier battle group, U.S. Naval Forces in Europe 
and Allied Forces Southern Europe in the NATO Alliance. I have been 
privileged to serve on six occasions in Joint Task Forces (JTF's) 
around the world and have been assigned overseas in the Middle East, 
Asia and, now, Europe. I have been privileged to fill several 
Washington staff positions including the Deputy Chief of Naval 
Operations for Plans, Policy and Operations and in the Navy's Office of 
Legislative Affairs. My career has included qualification as a fighter 
pilot, test pilot, nuclear weapon delivery pilot, and ship's captain, 
as well as graduate-level education in both aerospace and nuclear 
engineering.
    Question. What are the most important lessons that you have learned 
as Commander, U.S. Naval Forces, Europe and Commander in Chief, Allied 
Forces, Southern Europe?
    Answer. This assignment has reaffirmed for me the importance of the 
current readiness of our military forces and the important role of 
their presence around the world. I have seen the unique capabilities of 
our joint forces used both in support of national interests and in 
concert with our allies. Finally, in addition to inter-service 
cooperation, I have learned the value of an innovative, integrated, 
cross-sector, interagency and interdisciplinary approach to our 
National Security Challenges.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Commander in Chief, 
U.S. Strategic Command?
    Answer. I certainly have much to learn. Not only are we in a period 
of strategic transition, but I have not worked regularly with the many 
organizations that contribute to the success of USSTRATCOM (Congress, 
National Security Council, Nuclear Weapons Council, Defense Threat 
Reduction Agency, Department of Energy, and others). If confirmed, I 
will make it a priority to become more familiar with these 
organizations and the contributions they make to the success of our 
missions.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Commander in Chief, U.S. Strategic Command, to the following 
officials:
    The Secretary of Defense.
    Answer. In accordance with Title 10, United States Code, section 
164, the Commander of U.S. Strategic Command (CINCSTRAT) performs his 
duties under the authority, direction, and control of the Secretary of 
Defense. He is directly responsible to the Secretary of Defense for the 
preparedness of the command and the ability to carry out missions 
assigned to the command.
    Question. The Deputy Secretary of Defense.
    Answer. In accordance with Title 10, United States Code, section 
132, the Deputy Secretary of Defense will perform duties and exercise 
powers as prescribed by the Secretary of Defense, and in the absence of 
the Secretary of Defense, perform his duties. If confirmed, I intend to 
work closely with the Deputy Secretary on all strategic matters.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary regarding matters related to 
their functional areas. Within their areas, Under Secretaries exercise 
policy and oversight functions. In discharging their responsibilities, 
the Under Secretaries may issue instructions and directive-type 
memoranda that implement policy approved by the Secretary. These 
instructions and directives are applicable to all DOD components. They 
may also obtain reports and information necessary to carry out their 
functions. As with other communications between the NCA and combatant 
commanders, communications between the Under Secretaries and combatant 
commanders are transmitted through the Chairman of the Joint Chiefs of 
Staff.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for C\3\I, Legislative Affairs, and Public Affairs, all Assistant 
Secretaries are subordinate to one of the Under Secretaries of Defense. 
This means any relationship USSTRATCOM would require with any Assistant 
Secretary of Defense would be through the appropriate Under Secretary 
of Defense. Since the Assistant Secretaries of Defense for C\3\I, 
Legislative Affairs, and Public Affairs are the Secretary of Defense's 
principal deputies for overall supervision of C\3\I, legislative 
matters, and public affairs, respectively, any relations required 
between USSTRATCOM and ASD (C\3\I), ASD (LA), or ASD (PA) would be 
conducted along the same lines as those discussed above regarding 
relations with the various Under Secretaries of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is clearly established by Title 10, United 
States Code, as the principal military advisor to the President, 
National Security Council, and Secretary of Defense. He serves as an 
advisor and is not in the chain of command that runs from the National 
Command Authorities (NCA) directly to each combatant commander. The law 
does allow the President to direct that communications between the NCA 
and the combatant commanders be transmitted through the Chairman. This 
action keeps the Chairman fully involved so that he can execute his 
other responsibilities. By law and to the extent directed by the 
Secretary of Defense, the Chairman serves as spokesman for the 
combatant commanders and is charged with overseeing their activities. 
He provides a vital linkage between the combatant commanders and other 
elements of the Department of Defense. While the legal duties of the 
Chairman are many and they require either his representation or 
personal participation in a wide range of issues, if confirmed, I will 
also have an obligation in accordance with Title 10, United States 
Code, to keep the Secretary of Defense promptly informed on matters for 
which he may hold me personally accountable. If confirmed, I will work 
with and through the Chairman in the execution of my duties.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, United States Code, section 165, provides that, 
subject to the authority, direction, and control of the Secretary of 
Defense and subject to the authority of combatant commanders, the 
Secretaries of Military Departments are responsible for the 
administration and support of the forces they have assigned to 
combatant commands. The authority exercised by a combatant commander 
over Service components is quite clear, but requires close coordination 
with each Secretary to ensure there is no infringement upon those 
lawful responsibilities a Service Secretary alone may discharge.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs are no longer involved in the operational chain of command. They 
now have two significant roles. Their primary function is to provide 
organized, trained, and equipped forces to perform a role--to be 
employed by the combatant commander in the accomplishment of a mission. 
Additionally, as members of the Joint Chiefs of Staff, the Service 
Chiefs have a lawful obligation to provide military advice. 
Individually and collectively, the Service Chiefs are a source of 
experience and judgment every combatant commander can and should call 
upon. If confirmed, I would work closely and confer regularly with the 
Service Chiefs.
    Question. The Combatant Commanders.
    Answer. CINCSTRAT fully supports other combatant commanders as 
directed in the Unified Command Plan. USSTRATCOM provides theater 
nuclear and counterproliferation support to combatant commanders to 
assist them in developing tailored annexes designed to counter weapons 
of mass destruction (WMD). USSTRATCOM also provides specialized 
planning and consequence analysis, when requested by other combatant 
commanders. Additionally, CINCSTRAT works closely with other combatant 
commanders to initiate crisis action procedures contained in the 
Nuclear Supplement to the Joint Strategic Capabilities Plan. In crisis 
situations, when assigned as a supporting CINC, CINCSTRAT supports 
planning and execution of military operations for the combatant 
commander.
    Question. The Administrator of the National Nuclear Security 
Administration.
    Answer. In accordance with title 32, section 3212, of the National 
Nuclear Security Act of 1999, the Administrator is responsible to the 
Secretary of Energy for all Department of Energy programs and 
activities involving the production, safety, and security of nuclear 
energy and nuclear weapons--including the stockpile stewardship 
program. Though the Administrator is outside the DOD chain of command, 
these issues are of concern to CINCSTRAT as well, and if confirmed, I 
will work closely and confer regularly with the Administrator.
    Question. The Deputy Administrator for Defense Programs, National 
Nuclear Security Administration.
    Answer. The Deputy Administrator is responsible to the 
Administrator to oversee programs and efforts to prevent the spread of 
materials, technology, and expertise relating to weapons of mass 
destruction (WMD); detect the proliferation of WMD; eliminate 
inventories of surplus fissile materials; provide for international 
nuclear safety. These are strategic issues of concern to USSTRATCOM as 
well, and if confirmed, my staff and I will work closely and confer 
regularly with the Deputy Administrator on these issues.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Commander in Chief, U.S. Strategic Command?
    Answer. I believe there are four major challenges:

        <bullet> Maintaining effective, credible, and secure strategic 
        deterrent forces.
        <bullet> Shaping a solid and stable environment and foundation 
        for any future arms reductions and promoting the 
        nonproliferation of weapons of mass destruction.
        <bullet> Ensuring a safe and reliable nuclear weapons 
        stockpile.
        <bullet> Taking care of our people.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed:

        <bullet> I will ensure our strategic force reductions are 
        managed in a way that maintains a viable deterrent for the 
        Nation and enhances strategic stability.
        <bullet> I would also continue to build on the work of Admiral 
        Mies and his predecessors in ensuring we strike the right 
        balance in our resource allocation and force sizing efforts and 
        in fostering productive military-to-military contacts which 
        further our threat reduction and confidence-building 
        activities.
        <bullet> In parallel with responsible management of our 
        relationship with Russia, I will work to strengthen our 
        capabilities to adapt to strategic challenges in South Asia or 
        elsewhere.
        <bullet> I will build on the cooperation which USSTRATCOM 
        already enjoys with other combatant CINCs to promote improved 
        planning, intelligence, exercises, resource management, 
        information security, force protection, and command and control 
        so that the Nation is better prepared to respond appropriately 
        to a variety of potential contingencies.

    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander in Chief, U.S. 
Strategic Command?
    Answer. USSTRATCOM's challenge is to continue to ensure a viable 
deterrent for the Nation and enhance strategic stability while working 
towards the President's goal of a force structure at the lowest levels 
consistent with the Nation's security needs. There are no new weapons 
or platforms in development and the ones we have are well beyond their 
initial design lives and need to be sustained. Critical to this 
sustainment effort is our industrial base and retention of our people 
with critical skills.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would promptly:
        <bullet> Meet with each of the USSTRATCOM Task Force 
        Commanders, and the Service Chiefs of the Air Force and Navy, 
        and the Strategic Advisory Group to ensure I am completely 
        familiar with the status of our strategic deterrent forces and 
        their command and control.
        <bullet> Visit the Department of Energy, each of the nuclear 
        laboratories, the Strategic Advisory Group, and other agencies 
        associated with USSTRATCOM to ensure our plans and policies 
        affecting stockpile stewardship, threat reduction, and 
        confidence building measures are closely aligned.
        <bullet> Verify our military-to-military contact program 
        aggressively supports our national policy and enhances the 
        stability of our strategic relationships.
        <bullet> Work closely with the Office of the Secretary of 
        Defense to implement requirements resulting from the ongoing 
        Nuclear Posture Review.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Commander in Chief, U.S. 
Strategic Command?
    Answer. In the wake of recent events, my first priority will be the 
protection of facilities and forces, at home or deployed. Second, I 
will examine the implications of the soon-to-be-completed Nuclear 
Posture Review. Third, since there are no new weapons in development, 
we must continue to examine sustainment of our current forces. Of 
course, taking care of our people, both military and civilian, will be 
key to accomplishing all these tasks.
                     deterrence and missile defense
    Question. Do you believe that a national missile defense system 
deployed by the United States would jeopardize or enhance strategic 
stability?
    Answer. The missile defense system that is proposed is designed as 
a limited system to defend against rogue states with ballistic missile 
technology. Such a system should have limited impact on overall 
strategic stability.
    Question. Do you believe that a national missile defense system 
deployed by the United States would jeopardize existing strategic arms 
control agreements or enhance the prospects for future strategic arms 
reductions? Please explain.
    Answer. The U.S. is currently engaged in dialogue with Russia about 
missile defense and its affect on the Anti-Ballistic Missile Treaty. 
The outcome of these talks will give us a better idea of our future 
prospects in this regard.
    Question. What are your views on the relationship between national 
missile defense--defenses against long-range ballistic missiles--and 
nuclear deterrence?
    Answer. At the height of the Cold War offensive based strategic 
deterrence worked well. This deterrent, which was used in a bi-polar 
environment, may need to adapt to a multi-polar environment. A more 
comprehensive framework, including missile defense, can integrate 
additional elements of military strategy to complement offensive 
nuclear forces to assure sustainment of a deterrent capability.
    Question. In your view, is there a connection between the number of 
U.S. strategic delivery platforms and strategic warheads on the one 
hand and the type of missile defense systems on the other? If so, what 
is your view of that relationship?
    Answer. Yes. The mix of offensive and defensive forces should be 
combined to form a defensive capability coupled with a timely offensive 
response posture that provides defense against small attacks from 
ballistic missiles and a guaranteed retaliatory capability against 
larger attacks, the result of and combination of which remains totally 
unacceptable to any aggressor. The challenge is to develop a well 
defined relationship between the offensive and defensive force.
    Question. Do you believe that the effectiveness of Russian or 
Chinese deterrent forces would be diminished in any meaningful way by 
United States deployment of a limited defense against long-range 
missiles?
    Answer. The overall effectiveness of Russian deterrent forces would 
not be significantly diminished by U.S. deployment of a limited missile 
defense. A limited U.S. missile defense system would affect the 
deterrent value of China's current strategic ballistic missile force. 
However, that impact will lessen if, as expected, China increases 
strategic nuclear arms over the next decade.
    Question. Do you believe that the effectiveness of Russian or 
Chinese deterrent forces would be diminished in any meaningful way by 
United States deployment of a layered defense capable of intercepting 
long-range missiles from land, sea, air and space-based platforms in 
the boost, midcourse and terminal phases of their flight?
    Answer. Without the benefit of classified analysis and modeling 
against a specific layered system, it's hard to say. Generally, 
however, the more effective a U.S. missile defense system is in 
diminishing retaliatory capability of Russian and Chinese deterrent 
forces the greater the incentive for expansion of these forces to 
maintain their perceived deterrent effect. The more a U.S. missile 
defense is capable of dealing with significant numbers of sophisticated 
ballistic missiles, the greater the perceived U.S. capability to 
conduct a pre-emptive attack on strategic deterrent forces and defend 
against the residual retaliatory strike.
                       russian strategic doctrine
    Question. In your view, what is the current Russian approach to 
strategic nuclear weapons, and if Russia has a launch on warning 
doctrine, what challenge does this pose for USSTRATCOM?
    Answer. Russia has increasingly relied on its strategic nuclear 
forces to maintain its great power status and to protect itself from 
potential military aggression worldwide. [Deleted].
    Question. In your view, how do the Russian nuclear doctrines for 
strategic and tactical nuclear weapons relate to U.S. force structure 
size and the number of nuclear weapons in the U.S. arsenal?
    Answer. While demonstrating an increased reliance on its nuclear 
arsenal, Russian leaders have openly discussed their intent to reduce 
nuclear stockpiles. Russian policies and stockpile size, however, are 
not the sole factors for determining U.S. force structure needs. U.S. 
strategic force structure and policies must consider, among other 
things, a more uncertain post-Cold War strategic environment and the 
emergence of new, promising strategic offensive and defensive 
capabilities. Again, this is an issue that the NPR is carefully 
considering.
                      de-alerting strategic forces
    Question. What is your view of the comparative safety and security 
of U.S. and Russian strategic forces?
    Answer. U.S.: The level of safety and security of U.S. strategic 
forces is at a high level. The Nuclear Command and Control System End 
to End Review led by (Retired) General Scowcroft has identified areas 
where we can continue to evaluate our already significant safety and 
security posture for strategic forces. Continuous evaluation of these 
areas, and implementation of enhancements as recommended by the End To 
End study groups will maintain the safety and security of our strategic 
forces for the foreseeable future.
    Russian: [Deleted].
    Question. In your view, what is the likelihood of either an 
accidental or unauthorized launch of either a Russian or U.S. ICBM or 
SLBM?
    Answer. United States nuclear forces are subject to numerous 
procedural and technical safeguards to guard against accidental or 
inadvertent launch.
    Russian: [Deleted].
    Question. In your view, do U.S. ICBMs or SLBMs maintain a ``hair 
trigger alert?''
    Answer. No, they do not. ``Hair trigger'' is an inaccurate 
assessment. Multiple stringent procedural and technical safeguards have 
been in place and will remain in place to guard against accidental or 
inadvertent launch. These safeguards exist to ensure the highest level 
of nuclear weapons safety, security, reliability, and command and 
control. We can not launch without Presidential direction.
    Question. How do you define ``hair trigger alert?''
    Answer. It is any alert status that would allow the launching of 
nuclear weapons in a less than deliberate manner--without the stringent 
procedural and technical safeguards.
    Question. In your view, should the U.S. reduce the alert status of 
its ICBMs or SLBMs?
    Answer. Reducing the alert status of our forces, in isolation, can 
diminish the credibility and survivability of our deterrent forces. 
However, if a de-alerting initiative does not degrade/curtail our 
strategic capability/mission I would consider supporting it. In 
general, de-alerting initiatives should not be adopted unless they are 
reciprocative, verifiable, and, most importantly, stabilizing.
    Question. Do you support reducing the alert status or deactivating 
ICBMs and SLBMs other than in the context of implementing the protocol 
to the START II Treaty that extends the deadline for destruction of 
strategic nuclear delivery vehicles?
    Answer. I do not support reducing the alert status of ICBMs and 
SLBMs unless the actions are reciprocative, verifiable, and most 
importantly stabilizing. As for deactivating ICBMs and SLBMs outside of 
the START II framework, the ongoing NPR analysis will determine if any 
systems should be deactivated and removed from strategic service, and 
if other reductions are possible. I am committed to following the 
President's guidance to reduce our nuclear forces to the lowest level 
commensurate with national security requirements.
                        strategic modernization
    Question. In your view, are the modernization and life extension 
initiatives for ICBMs and SLBMs sufficient to retain their reliability 
and effectiveness in the Strategic Triad?
    Answer. As our Nation comes to rely on a smaller strategic force, 
the imperative for modernizing and sustaining that force becomes even 
more critical to ensure a continued viable deterrent.
    In order to continue the reliability and effectiveness of our ICBM 
force, we have commenced a decade-long effort to extend the Minuteman 
III service life for another 20 years. Strong Congressional support of 
these ongoing efforts is essential to the success of these programs and 
the future viability of our ICBM leg of the Triad.
    In the SLBM arena, we have commenced the conversion of our 
strategic submarine force, with Congressional approval, from an 18 SSBN 
force composed of both Trident I (C-4) and Trident II (D-5) missiles to 
a 14 boat Trident II only force.
    Continued Congressional support for the Trident II missile 
conversion program remains essential to ensure a reliable sea-based 
deterrent well into the 21st century.
    Question. Do you believe that the current Air Force bomber roadmap 
is an adequate plan to sustain the bomber force as an effective part of 
the Strategic Triad?
    Answer. The bomber roadmap details many of the programs required to 
maintain the bomber force as an effective part of the Strategic Triad. 
To that end, we fully support current Air Force programs designed to 
meet critical sustainment and modernization shortfalls. Continued 
Congressional support for our strategic bomber and nuclear cruise 
missile initiatives remains critical to the future viability of our 
bomber force.
              u.s. strategic force posture beyond start ii
    Question. During the Helsinki Summit meeting of March 1997, the 
United States agreed to begin negotiations on START III once START II 
enters into force. The START III framework would have limited the sides 
to between 2,000 and 2,500 deployed strategic warheads.
    If the United States and Russia reduce deployed strategic warheads 
to between 2,000 and 2,500, how would you recommend that the U.S. 
strategic force posture be adjusted?
    Answer. The on-going Nuclear Posture Review is examining this 
question in great detail; as such it would be premature to postulate 
specific force posture adjustments.
    Question. Currently, the U.S. Navy is planning to backfit four 
older Trident submarines with D-5 missiles in order to support a START 
II force of 14 Trident submarines equipped with the D-5 missile.
    Do you believe that a 14 Trident submarine fleet will still be 
required if the United States reduces to 2,000 to 2,500 strategic 
warheads?
    Answer. Yes. Trident submarines will continue to carry the largest 
portion of our strategic nuclear warheads under any 2,000 to 2,500 
strategic warhead force structure. Our SSBN force is the most 
survivable leg of the Triad. Thus, the U.S. must preserve a large 
enough SSBN force to enable two-ocean operations with sufficient assets 
at sea to ensure a survivable, responsive retaliatory force capable of 
dissuading any potential adversary.
    Question. In your view, is there a scenario where the U.S. would 
not need 14 Trident submarines if the U.S. reduced below 2,000 
strategic warheads?
    Answer. Possible reductions below 2,000 may create a situation 
where 14 SSBNs are no longer numerically required. I would seek to 
maximize combat capability by maintaining sufficient platforms to 
maintain maximum operational flexibility. The need for survivable 
submarines at sea will be necessary under any scenario. Fourteen 
Trident submarines allow a credible, two-ocean, strategic deterrent 
presence with our projected maintenance cycle and operating 
environment.
    Question. What kind of warhead loading would be required to remain 
within a 2,000 to 2,500 strategic warhead level?
    Answer. Based on preliminary analysis, warhead downloading is a 
possible option, although it is premature to speculate on the force 
composition until the NPR is complete. The issues and variables are 
complex; but, if confirmed, I would explore options that make fiscal 
sense and do not reduce the credibility of our strategic deterrent.
    Question. What changes to the ICBM and bomber forces would you have 
to make in order to remain within a 2,000 to 2,500 strategic warhead 
level?
    Answer. Based on preliminary analysis, a reduction in ICBM and 
bomber force structure is possible, although it is premature to 
speculate on the force composition until the NPR is complete. If 
confirmed, I would support only those options that would continue to 
maximize our operational flexibility and stability.
    Question. Do you favor reductions in strategic nuclear delivery 
systems beyond the 2,000 to 2,500 strategic warhead level?
    Answer. The NPR is examining the appropriate force structure/
warhead level and the SecDef will provide a formal report to Congress 
on the force structure. Stability is the most important criterion as we 
proceed down the glide path to lower numbers of nuclear weapons. 
Control of the glide path is critical--the journey is just as or even 
more important than the destination. Any reductions must allow a hedge 
capability by avoiding the elimination of platforms while preserving 
nuclear infrastructure and technical skills.
    Question. Do you believe that there is a minimum number of nuclear 
weapons or delivery systems that the United States should maintain 
under any scenario?
    Answer. No, I do not believe there is a ``hard and fast'' minimum 
number. The manner in which reductions are contemplated and carried out 
is critical. The most important criterion in assessing prospective arms 
control measures or unilateral reductions is stability. As we reduce 
our strategic delivery systems to lower numbers, issues such as 
disparity in non-strategic nuclear forces, transparency, 
irreversibility, production capacity, aggregate warhead inventories, 
and verifiability become more complex and sensitive.
    Question. Do you believe that the U.S. will need to retain a 
Strategic Triad under any future agreements or unilateral reductions?
    Answer. I support maintaining a Triad. Each component provides 
unique attributes that enhance deterrence and reduce risk; submarines 
provide survivability, bombers provide flexibility, and 
intercontinental ballistic missiles provide prompt response. Together, 
they provide a stable deterrent and complicate an adversary's offensive 
and defensive planning.
    Question. In your view, what is the minimum number of strategic 
nuclear warheads that should be deployed in the inactive and active 
inventories of U.S. nuclear weapons? On what strategy are these numbers 
based?
    Answer. The ongoing Nuclear Posture Review (NPR) is studying this 
topic and as such it is somewhat premature to postulate an active and 
inactive inventory level. The NPR is developing the strategy for the 
current/future strategic environment. This will then support 
appropriate force structure numbers and active/inactive inventory 
levels.
    Question. In your view, what should be the minimum number of 
strategic nuclear warhead designs included in the inactive and active 
inventories of U.S. nuclear weapons? On what strategy are these numbers 
based?
    Answer. Again, the ongoing NPR will provide the details to these 
answers. With the exception of the one type of warhead currently slated 
for retirement, I believe we should retain all current designs in the 
active and inactive stockpile. These designs provide a ready hedge for 
an uncertain future strategic environment.
    Question. In computing this force structure, do you assume 
ratification of START II?
    Answer. No. The NPR process is reviewing our strategy and policy to 
ascertain the force structure requirements that are consistent with our 
national security needs. In this context, we assume the U.S. will 
comply with the START I Treaty requirements and START II is not 
ratified.
                    strategic force industrial base
    Question. From your perspective, are there key sectors of the U.S. 
industrial base that must be protected in order to sustain U.S. 
strategic forces for the foreseeable future?
    Answer. It is my personal conviction that the support and 
sustainment of our strategic systems are absolutely essential to ensure 
a continued, viable deterrent. Our Nation has in hand, or is near the 
end of production of, all of its major strategic systems. Since there 
are no follow-on systems in development, the existing systems must be 
maintained for an unforeseeable length of time. Therefore, it is 
crucial for us to ensure continued support for key strategic components 
and systems unique to our strategic forces. The Strategic Advisory 
Group that advises CINCSTRAT has studied the industrial base and 
continues to assess areas of concern. Some of the key ballistic missile 
sectors they have identified that must be protected to sustain our 
ICBM/SLBM forces include ballistic missile propulsion production 
capability, re-entry vehicle technology, guidance systems, and 
component vulnerability to electromagnetic pulse. If confirmed, I will 
continue to support efforts to sustain our industrial base.
    Question. In your view, are the ongoing efforts in this area 
adequate?
    Answer. It is my understanding that USSTRATCOM, in coordination 
with the Office of the Secretary of Defense and the Services, is 
pursuing industrial capability sustainment initiatives which support 
space-based communication and sensor systems, strategic missile 
guidance technology, propellant technology, and reentry vehicle design 
capability. The Radiation Hardened Micro-Electronics Oversight Council, 
under the auspices of the Under Secretary of Defense (Acquisition, 
Technology, and Logistics) is an example of how present concerns are 
being addressed. Additionally, the Strategic Advisory Group's 
Industrial Base Special Study Group is studying future industrial base 
concerns. Supporting crucial technologies and systems is key to keeping 
our strategic forces robust, reliable, and modern/credible.
                        nuclear weapons complex
    Question. In your view, are there opportunities to downsize and 
modernize the nuclear weapons manufacturing complex?
    Answer. The nuclear weapons manufacturing complex has no redundancy 
built into the system. Each piece of the complex is unique and 
irreplaceable. I don't feel there is room for further downsizing of the 
manufacturing complex especially with the number of refurbishments that 
will be scheduled to maintain the enduring stockpile over the next 20 
years. The complex is old and there are many areas where modernization 
would significantly enhance capabilities and throughput for the 
manufacturing complex.
    Question. If confirmed, would you support modernization of the 
manufacturing complex?
    Answer. Yes, if confirmed I would fully support modernization 
efforts. The National Nuclear Security Administration has a plan and is 
implementing the plan to modernize many aspects of the manufacturing 
complex. I fully agree with their efforts and hope the funding will be 
maintained to ensure the modernization programs are fully implemented.
    Question. Does downsizing provide cost savings that could help 
defray the cost of modernizing the manufacturing complex?
    Answer. No. With the demanding refurbishment schedule planned for 
the various warheads in the enduring stockpile, I don't believe there 
would be any savings in downsizing and that it could adversely affect 
the maintenance of the enduring stockpile.
                         nuclear posture review
    Question. What is your understanding of your role, if confirmed, in 
the Nuclear Posture Review?
    Answer. While OSD and the Joint Staff are co-leads for the NPR, 
USSTRATCOM has remained an integral player in all aspects of the NPR. 
USSTRATCOM brings unique capabilities that should be integrated within 
the NPR process.
                       role of strategic command
    Question. Please describe the role you intend to play, if 
confirmed, in assessing and participating in the Department of Energy's 
science-based stockpile stewardship and management program.
    Answer. USSTRATCOM is an active participant in the development of 
the overall strategy and plan. The U.S. must ensure its nuclear 
stockpile remains safe, secure, and reliable. I recognize CINCSTRAT has 
specific responsibility in that regard. The Stockpile Assessment Team 
is now holding an annual stockpile stewardship conference and reports 
the results to CINCSTRAT. If confirmed, I intend to continue to 
carefully monitor DOE progress in developing a viable stockpile 
stewardship and management program.
    Question. What is your view as to the role USSTRATCOM should play 
with respect to tactical nuclear weapons?
    Answer. USSTRATCOM has a unique planning capability for tactical 
weapons that we can and do provide to theater CINCs. We should 
continue, and expand this role, when appropriate.
    Question. Should tactical nuclear weapons be brought under the 
auspices of USSTRATCOM?
    Answer. Currently, theater CINCs maintain responsibility, 
authority, and operational control. Any change to this arrangement 
would have to be carefully studied and evaluated for impact on our 
strategies, forces, and international relationships.
                         warhead certification
    Question. Are you confident in our ability to identify and fix 
potential problems in all weapons expected to be included in the 
enduring stockpile?
    Answer. My confidence in the ability to identify problems rests on 
the projected success of the science-based Stockpile Stewardship 
Program. This will depend on fully supporting the NNSA program, and how 
successful we are in the years ahead in developing the complex 
technological tools and maintaining the necessary expertise in our 
people. It is imperative as we move forward that we develop the tools 
necessary to predict problems in the stockpile before they jeopardize 
safety or reliability.
    Question. What do you believe to be our biggest challenges in 
maintaining the nuclear weapons expected to be in the enduring 
stockpile?
    Answer. Two critical challenges are aging and the certification of 
modifications to weapons. The answer depends on the success of the 
Stockpile Stewardship Program. NNSA is required to certify the 
reliability and safety of the Nation's nuclear stockpile. CINCSTRAT is 
charged with reporting on his confidence in the safety and reliability 
as part of an annual assessment process. The certification process is 
more difficult without nuclear testing, and the national laboratory 
experts report there are issues that cannot be addressed with current 
tools, although none currently are severe enough to warrant an 
underground test. Funding levels must be maintained so that new tools 
can be delivered on schedule.
                  annual warhead certification process
    Question. The administrative process for certifying the safety and 
reliability of the nuclear stockpile requires the Commander in Chief of 
the Strategic Command and the three nuclear weapons laboratory 
directors to report annually to the Secretaries of Defense and Energy 
who in turn certify to the President the continued safety and 
reliability of the nuclear weapons stockpile.
    If confirmed, would you provide Congress a copy of your annual 
certification?
    Answer. CINCSTRAT does not certify the stockpile. NNSA is 
responsible for certifying the safety and reliability of the stockpile. 
CINCSTRAT is charged with providing an assessment of the safety and 
reliability of the stockpile as part of an annual certification process 
directed by the President. The Secretaries of Defense and Energy co-
sign the annual certification and are responsible for the control of 
the certification document. If confirmed, and if requested, I would 
provide my views to Congress.
                        limited life components
    Question. How confident are you in the Department of Energy's 
ability to manufacture limited life components for the enduring 
stockpile?
    Answer. I am confident the Department of Energy will meet DOD needs 
in maintaining the required stockpile levels. If confirmed, I will 
closely monitor the process. Given the importance of the issue and the 
uncertainties about the future, their plans must stay on track.
                      pit manufacturing capability
    Question. In your view, what is the annual requirement for pit 
production, by weapons type, for which DOE should size a pit production 
facility? Would this number change if the U.S. reduced the number of 
warheads to a level of 2,000 to 2,500 or below?
    Answer. The number depends on several factors including pit 
lifetime and the size and composition of the enduring stockpile. NNSA 
is currently studying the effects of aging on special nuclear 
materials. The results of this effort will help establish functional 
pit lifetimes.
         maintaining nuclear weapons expertise in the military
    Question. If confirmed, what actions would you propose to take as 
CINCSTRAT to ensure that nuclear-related jobs are not viewed as career 
limited and that nuclear programs continue to attract top quality 
officers and enlisted personnel?
    Answer. I fully support Service programs that are vital to ensure 
we have the highest quality of men and women needed for our nuclear 
forces. This includes initiatives to identify and track those personnel 
with nuclear experience. If confirmed as CINCSTRAT and the lead 
spokesman for our strategic forces, I will ensure the word gets out on 
our successes. Officer and enlisted personnel are being promoted at the 
highest rate since the stand up of USSTRATCOM and members completing 
duties are receiving assignments that enhance their professional 
development. I believe it is critical that we continue to communicate 
the challenging opportunities and the successes of the men and women 
assigned to our strategic nuclear forces.
                 comprehensive nuclear test ban treaty
    Question. Do you believe that the U.S. can maintain a safe and 
reliable nuclear weapons stockpile under the Comprehensive Nuclear Test 
Ban Treaty?
    Answer. If the Science Based Stockpile Stewardship and management 
Program proceeds as designed it should be possible to maintain a safe 
reliable stockpile. This requires full program funding and the 
successful development of new technology. I am greatly concerned 
between the widening gap between stockpile program requirements and 
available resources. The delays in many high-priority stockpile 
stewardship programs because of aging infrastructure and inadequate 
funding must be addressed with greater urgency. The planned tools are 
designed to give us a degree of confidence in the stockpile that would 
not otherwise be possible without nuclear testing. Until those tools 
are operational, some degradation in the reliability of the stockpile 
is possible, but I cannot judge its significance at this time. Within 
the Comprehensive Test Ban Treaty (CTBT), Safeguard F provides that the 
U.S. may resume testing if it is in the supreme national interest of 
the Nation. In that regard, CINCSTRAT is charged with reporting on his 
confidence in the safety and reliability of the stockpile as part of an 
annual certification process directed by the President. For the past 6 
years, USSTRATCOM has conducted an examination of each strategic 
nuclear weapon type in the stockpile. In conducting that assessment, no 
issues were found which would warrant the resumption of nuclear 
testing. While no-one can guarantee that the SSP will allow us to 
certify the safety, security, and reliability of the stockpile 
indefinitely in the absence of testing, a judgment that testing is 
required would not necessarily mean that SSP had failed.
    Question. Do you support the Comprehensive Nuclear Test Ban Treaty 
as currently drafted? If not, what specific changes would be needed to 
gain your support?
    Answer. I support the philosophy of CTBT as component of an overall 
arms control and stability framework. While there are genuine concerns 
with the treaty and verification requirements, the philosophy is 
consistent with the Non-Proliferation Treaty.
    Question. Do you believe that the CTBT is verifiable, as currently 
drafted?
    Answer. According to GEN Shalikashvili's recommendations to 
Congress on CTBT, the treaty will give the U.S. access to the 
international monitoring system. ``The IMS primary seismic system will 
provide three-station 90 percent detection thresholds below 500 tons 
and below 200 tons for all historic test sites in the Northern 
Hemisphere.'' It should be noted that is not possible to verify a true 
zero-yield test ban without additional measures that are not currently 
provided for in the CTBT. However, even a true zero-yield test ban 
would allow experiments that provide useful information for weapon 
designers.
    Question. In your view, will the planned science-based Stockpile 
Stewardship Program, as it is currently being developed, allow us to 
continue to certify our nuclear weapons stockpile as safe and reliable 
indefinitely without testing?
    Answer. The Stockpile Stewardship Program (SSP) must be fully 
funded in order to have all the needed tools delivered on schedule. 
Ultimately, the SSP may uncover unanticipated problems in the 
stockpile. Since we don't know what we don't know, SSP does not 
guarantee a test will never be required. In fact, an important 
obligation of SSP is to ensure that we maintain the ability to test.
    Question. In your view, will the planned science-based Stockpile 
Stewardship Program, as it is currently being developed, allow us to 
continue to meet the DOD's requirements for our nuclear weapons 
stockpile without future testing?
    Answer. Our current stockpile was developed for the Cold War. We 
need to be able to adapt our current arsenal to add or improve 
capabilities in order to meet emerging threats. As these new 
capabilities are added, it will be up to NNSA and the National Labs to 
certify the weapons. The adaptations currently envisioned appear 
possible to accomplish without underground testing.
    Question. If the DOD eventually requires a new nuclear weapon 
design, will the planned science-based Stockpile Stewardship Program 
allow us to develop a new, safe, and reliable nuclear weapon without 
testing?
    Answer. NNSA and the National Labs are required to certify any new 
designs developed. They will have to determine if an underground test 
is required for any new weapon design.
                        nuclear weapons council
    Question. If confirmed, what will be your relationship with the 
DOE, and with the Nuclear Weapons Council?
    Answer. A close, cooperative relationship with both the Department 
of Energy and the Nuclear Weapons Council, as well as other 
organizations such as the Defense Threat Reduction Agency, is vital to 
address the challenges of ensuring a safe and reliable nuclear weapons 
stockpile, building a stable foundation for the implementation of arms 
control agreements, and helping shape the international environment to 
promote the non-proliferation of weapons of mass destruction. If 
confirmed, I will continue to foster a strong partnership with each of 
these organizations and frequently seek their counsel to address those 
challenges.
    Question. Do you support an active Nuclear Weapons Council, to 
include regularly scheduled meetings?
    Answer. Yes. With the many actions taking place within the nuclear 
weapons complex and the many ongoing refurbishment programs or soon to 
be going on, an active Nuclear Weapons Council is imperative. Their 
guidance will be necessary to ensure programs continue on track and any 
issues are resolved in a timely manner to preclude unnecessary delays 
in programs.
           trident submarine conversions and start accounting
    Question. If the Navy continues on a path to convert either two or 
four of the Trident submarines to be decommissioned to an SSGN 
configuration that is treaty accountable, at what point would 
``phantom'' warheads ascribed to these boats limit USSTRATCOM's ability 
to maintain sufficient warheads to execute the National Military 
Strategy?
    Answer. Under START I Accountability Rules and Limits, converting 
four Trident submarines to SSGNs presents no ``phantom warhead'' 
counting issues. If we move to lower limits within a treaty framework 
and the accounting rules are not modified we cannot afford the numbers 
lost to phantom warheads.
                  cooperative threat reduction program
    Question. Do you support the Cooperative Threat Reduction program?
    Answer. I strongly support Cooperative Threat Reduction. It has 
proven itself to be an invaluable part of a broadened definition of 
deterrence, as a cost-effective means to aid in the 
``denuclearization'' of former Soviet states, to continue to promote 
stockpile safety and security in Russia, and help stem the 
proliferation of weapons.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. If confirmed, it is my duty to keep you, the 
representatives of the people, informed of the status of our strategic 
deterrent forces.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes. It is my responsibility to provide the best military 
advice regardless of the administration's views.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander in Chief, U.S. 
Strategic Command?
    Answer. Yes. If confirmed, I will make myself available to this 
committee or designated members whenever requested.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes. I will be forthcoming with all information requested.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                              requirements
    1. Senator Thurmond. Admiral Ellis, modernization of our forces is 
the key to maintaining their effectiveness to meet the future 
challenges of this new threat environment. In your judgment, what is 
the most critical modernization requirement of the Strategic Command?
    Admiral Ellis. For United States Strategic Command to maintain a 
credible strategic deterrence through the 21st century, the 
modernization and sustainment of all three legs of the Triad, (the 
bomber, intercontinental ballistic missile and sea launched ballistic 
missile) must occur. In addition, the fourth leg of the strategic 
``quadrad,'' the survivable, assured, and enduring command, control, 
communication, and computer intelligence, surveillance, and 
reconnaissance (C\4\ISR) network, must be vigorously supported for 
modernization. These include our airborne platforms, E-4 and E-6, 
survivable satellite communications, fixed and mobile command centers, 
and the network that supports them with planning and ISR information. 
As recent events have shown, the vulnerability of national assets 
necessitates increased vigilance in sustaining the security of our 
nuclear forces and stockpiles.

                                balkans
    2. Senator Thurmond. Admiral Ellis, the tragic events of September 
11 have virtually taken the situation in the Balkans off the television 
and the front page of our newspapers. As the Commander of forces in 
that region, please give me your views on how the effort to eliminate 
terrorism will influence our commitment to that troubled region?
    Admiral Ellis. As the Commander of the North Atlantic Treaty 
Organization's (NATO) Southern Region, I can assure you that the tragic 
events of September 11 have touched all of us, whether American, ally, 
partner or friend. The global effort to counter the scourge of 
terrorism has in no way weakened the resolve or the ability of all 
involved in helping to bring peace to the Balkans. Indeed, in both 
Bosnia and Kosovo, our NATO forces have expanded their vital security 
efforts and have already made significant gains in identifying and 
exploiting potential members of the global terrorist web. Those being 
successfully pursued may be attempting to use the Balkan crisis as a 
cover for the support of extremist activities worldwide. With our NATO 
allies, we will continue this important effort, in addition to 
continuing our shared support of the stabilization efforts in Bosnia, 
Kosovo, and Macedonia.

                      status of nuclear stockpile
    3. Senator Thurmond. Admiral Ellis, although the Department of 
Energy has the responsibility for ensuring the reliability and safety 
of our nuclear weapons, as CINC STRATCOM you have a vital interest in 
these issues. What if any concerns do you have regarding the age 
reliability and safety of our nuclear stockpile?
    Admiral Ellis. As the stockpile ages, and as our diagnostic tools 
and methods continue to improve, it is likely we will find more 
problems with the stockpile that require fixing. Our ability to respond 
to unforeseen problems is limited. I agree with the United States 
Strategic Command Stockpile Assessment Team's (SAT) determination that 
the weapons complex is fragile in many areas. The complex is challenged 
to maintain the current workload of Stockpile Life Extension Programs 
(SLEPs). Additional workloads could leave identified problems deferred 
for an unacceptable length of time, or cause delays in scheduled SLEPs. 
I support the recommendations of the SAT and the Foster Panel for 
infrastructure improvements and reduction of maintenance backlogs 
throughout the weapons complex. Additionally, I support a robust 
Stockpile Stewardship Program, which should continue to develop the 
tools necessary to allow us to be more predictive and less reactive in 
dealing with aging, reliability, and safety issues.
                                 ______
                                 
              Question Submitted by Senator Rick Santorum
                   replacement platform for the b-52
    4. Senator Santorum. Admiral Ellis, the B-52 joined the Air Force 
fleet in 1960. According to the Bomber Road Map recently provided to 
Congress, the B-52 is going to continue performing its mission for 
another 40 or 45 years. In light of the age of the B-52 fleet, do you 
believe that the Department of Defense ought to begin considering a 
replacement platform for the B-52? Do you support efforts to explore 
unmanned combat air vehicles (UCAVs) as a potential replacement to the 
B-52 or other bomber platforms?
    Admiral Ellis. I support Air Combat Command's Bomber Roadmap, which 
includes beginning bomber replacement analysis no later than 2010. 
Absolutely critical to this plan, is the full funding and timely 
fielding of the B-52 sustainment and modernization programs requested 
by the Bomber Roadmap. To that end, procurement of a survivable, 
secure, two-way communication system remains critical to the success of 
my mission. In addition, I request your continued support for ongoing 
Air Force programs to upgrade B-52 avionics, situational awareness and 
self-protection capabilities. Taken together, these modernization and 
sustainment programs should keep the bomber force viable until the 
scheduled replacement is fielded. I would support and encourage 
investigation of all options for a follow-on bomber platform and look 
forward to reviewing the findings from a future analysis of 
alternatives.
                                 ______
                                 
    [The nomination reference of Adm. James O. Ellis, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 14, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under Title 10, U.S.C., section 601:

                             To be Admiral

    James O. Ellis Jr., 0000.
                                 ______
                                 
    [The resume of service career of Adm. James O. Ellis, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Adm. James O. 
Ellis, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James O. Ellis, Jr., U.S. Navy.

    2. Position to which nominated:
    Commander in Chief, U.S. Strategic Command.

    3. Date of nomination:
    September 14, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    20 July 1947; Spartanburg, SC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Paula Dene Matthews Ellis on 20 June 1970; Atlanta, GA.

    7. Names and ages of children:
    CPT Patrick James Ellis, USA; Age: 29.
    Mrs. Lauren Elizabeth Ellis Brandy; Age: 27.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the Executive Branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval Institute (Life Member).
    Naval Historical Foundation.
    The American Legion.
    Naval Academy Alumni Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the Executive Branch.
    Guggenheim Fellowship in Aerospace Engineering, Georgia.
    Institute of Technology (1969).
    Grand Order of Merit of the Italian Republic (2001).

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
of Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    James O. Ellis.
    This 19th day of July, 2001.

    [The nomination of Adm. James O. Ellis, Jr. was reported to 
the Senate by Chairman Levin on September 26, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 26, 2001.]

 
NOMINATIONS OF LINTON F. BROOKS TO BE DEPUTY ADMINISTRATOR FOR DEFENSE 
NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY ADMINISTRATION; DR. 
    MARVIN R. SAMBUR TO BE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
 ACQUISITION; DR. WILLIAM WINKENWERDER, JR., TO BE ASSISTANT SECRETARY 
      OF DEFENSE FOR HEALTH AFFAIRS; EVERET BECKNER TO BE DEPUTY 
     ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY 
  ADMINISTRATION; AND MARY L. WALKER TO BE GENERAL COUNSEL OF THE AIR 
                                 FORCE

                              ----------                              


                       THURSDAY, OCTOBER 11, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m., in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Landrieu, Warner, and Allard.
    Other Senators present: Senator Pete Domenici.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Gerald J. Leeling, counsel; Peter K. Levine, general 
counsel; and Arun A. Seraphin, professional staff member.
    Minority staff members present: Romie L. Brownlee, 
republican staff director; Judith A. Ansley, deputy staff 
director for the minority; L. David Cherington, minority 
counsel; Gary M. Hall, professional staff member; Carolyn M. 
Hanna, professional staff member; Mary Alice A. Hayward, 
professional staff member; George W. Lauffer, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; Suzanne K.L. 
Ross, research assistant; Scott W. Stucky, minority counsel; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Dara R. Alpert, Thomas C. Moore, 
Jennifer L. Naccari, and Nicholas W. West.
    Committee members' assistants present: Jeffrey S. Wiener, 
assistant to Senator Landrieu; Robert Alan McCurry, assistant 
to Senator Roberts; and Arch Galloway II, assistant to Senator 
Sessions.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee meets today to consider the 
nominations of five individuals to senior positions in the 
Department of Defense and the National Nuclear Security 
Administration: Dr. Everet Beckner to be Deputy Administrator 
for Defense Programs at the National Nuclear Security 
Administration, Ambassador Linton Brooks to be Deputy 
Administrator for Defense Nuclear Nonproliferation at the 
National Nuclear Security Administration; Dr. William 
Winkenwerder, Jr. to be Assistant Secretary of Defense for 
Health Affairs; Dr. Marvin Sambur to be the Assistant Secretary 
of the Air Force for Acquisition, Research, and Development; 
and Ms. Mary Walker to be General Counsel of the Air Force.
    On behalf of the committee, let me welcome each of you and 
your families. We have a tradition of asking nominees to 
introduce family members who are present, and I think I will 
hold off on that so we can let our two colleagues make 
introductions, if they are ready to do that, because they, I 
know, have incredibly hectic schedules. Are you ready, Senator 
Kennedy?
    Senator Kennedy. Yes.
    Chairman Levin. We would start with you to make your 
introduction. Then we will go to Senator Domenici so that you 
are able to get on with your schedules.

             STATEMENT OF SENATOR EDWARD M. KENNEDY

    Senator Kennedy. Thank you very much, Mr. Chairman.
    The President has a great number of nominations to make on 
a wide variety of positions. There are many positions of 
extraordinary importance in any administration. We know that. 
In this particular situation, in selecting William 
Winkenwerder, Jr., as the Assistant Secretary of Defense for 
Health Affairs, he has made one of his very best. I am 
delighted and honored to be able to say a word on his behalf, 
although his record of achievement and accomplishment really 
speaks for itself.
    I know that he will introduce his wife, Mary Pride, who is 
here, and their 9-year-old son, Will, who is with him today.
    Listen to this list of achievements and accomplishments.
    He had an extraordinary record at the University of North 
Carolina in the medical school and then went on to a great 
career as a primary care physician. He has currently been 
working in Blue Cross/Blue Shield in the office of the CEO as 
the vice chairman, and from all sides in Massachusetts, he has 
just received rave reviews.
    He has had experience in health finance, in the Health Care 
Financing Administration (HCFA), which is enormously 
significant, and he knows his way through that agency.
    He was also an associate vice president of health affairs 
at Emory University, and on top of that, he has a masters in 
business administration from Wharton School.
    In each and every one of these positions, he has been 
associated with excellence, and he brings all of that 
experience to this position. I think all of us want the very 
best in terms of health care for the members of the Armed 
Forces. I think this nominee brings an extraordinary experience 
in managerial skills, with an incredibly deep commitment to 
quality health care. Those elements can reassure the members of 
the Armed Forces and their families that they are really 
getting the best in this particular position.
    I think we are extremely fortunate to have this nominee and 
look forward to supporting him and working with him in the 
years ahead. I congratulate him.
    Chairman Levin. Thank you, Senator Kennedy. I know our 
nominee feels fortunate in having an introduction such as that.
    Senator Domenici.

 STATEMENT OF SENATOR PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you very much, Mr. Chairman.
    I am delighted to yield to Senator Kennedy since he is so 
much my elder. [Laughter.]
    I am here because I have a New Mexican, Dr. Everet Beckner, 
that was born in a little town of Clayton, New Mexico, hardly a 
town anybody would know anything about, near the border of 
Oklahoma and Texas. But having been born in a rather small, 
kind of hidden community, his scientific prowess has not been 
hidden. He was a 28-year veteran expert at Sandia National 
Laboratories.
    Frankly, you are aware that a couple of years ago, we 
created the National Nuclear Security Administration (NNSA), 
kind of an outcropping of the DOE to take care of all matters 
nuclear in terms of weaponry and also nonproliferation. General 
Gordon has apparently achieved a high degree of satisfactory 
performance even from those who were not too sure that that 
approach was going to work. I think the distinguished chairman 
is one of those who is now admiring the work of the good 
general.
    He really needs some help, and this is a very fortunate and 
good day for the NNSA because you are confirming two people. I 
am only introducing Dr. Beckner, but you also have the 
Ambassador of whom you spoke, Ambassador Linton Brooks. The two 
of them are going to add vastly to the capacity of General 
Gordon to do his very difficult job.
    All I can say, with reference to Everet Beckner, is he was 
4 years the Principal Deputy Assistant Secretary for Defense 
Programs as the whole concept of stockpile stewardship began. 
There was a scientist in the military named Vic Reis who 
started science-based stockpile stewardship as a concept which 
would make it such that we would not have to do underground 
testing, if it worked. It is still a growing and a major 
science effort to see if we can prove the efficacy of our 
nuclear weapons without testing, and this nominee has been 
active in that since its inception.
    Now he goes to the new group within the Department to 
become the first Deputy Administrator. I cannot tell you how 
pleased I am, having been the one who came up with the idea 
that we should form the nuclear organization that's an 
outcropping of DOE, and having run it through on a very 
controversial set of debates. I think everyone thinks it 
deserves a chance. It cannot do that without people like this. 
So, I hope you will expedite both of them. They are both very 
competent.
    I thank you very much, Mr. Chairman. I thank both of them 
for taking this job. It is a very hard department that is just 
beginning to get developed, very competitive with other aspects 
of the defense establishment. They need your support. They need 
ours from the Appropriations Committee and we will get them 
that, and we hope you will continue to do that. Thank you very 
much.
    Chairman Levin. Thank you very much, Senator Domenici.
    Let us now turn to our nominees and first ask each of them 
if they would introduce family members who are present. Family 
members are essential, to have their support for these nominees 
and for all of our officials to carry out their duties and 
responsibilities. So, why do we not start with you, Dr. 
Beckner.
    Dr. Beckner. My wife Caroline is here.
    Chairman Levin. I wonder if she would stand up. Welcome. 
Thank you.
    Ambassador Brooks.
    Ambassador Brooks. My wife Barbara is unable to be with us 
today, Senator. I'm sorry.
    Chairman Levin. That's fine. Thank you.
    Dr. Winkenwerder. In addition to my wife, Mary Pride, and 
my son Will, a family friend, Marilyn Murdock, is here.
    Chairman Levin. I wonder if they would stand. Is that your 
son Will?
    Dr. Winkenwerder. That is my son Will.
    Chairman Levin. How old are you, Will?
    Mr. Winkenwerder. 9.
    Chairman Levin. 9? Well, you are allowed to do a little 
squirming here today, if you are 9. [Laughter.]
    Not because the questions will be too tough for your dad, 
just because you are 9 years old. It is nice of you to come and 
support your dad. I know how much it means to him. To have my 
children with me would be very important, and I know it is 
important to your pop to have you around.
    Dr. Sambur.
    Dr. Sambur. I have my wife Arlene and my daughter Beth here 
with me.
    Chairman Levin. I wonder if they might stand. Welcome to 
both of you.
    Ms. Walker.
    Ms. Walker. Yes, Mr. Chairman. My son was unable to be here 
today, but I have two close friends from California, Catherine 
Robertson and Anne Durning. I also have three colleagues from 
my former days at the Department of Energy, Mike Farrell, Ray 
Berube, and Kerrie Sullivan.
    Chairman Levin. Well, we welcome them all. I wonder if they 
might stand and be recognized. Thank you for coming and showing 
your support.
    Dr. Beckner served for nearly 30 years in a variety of 
positions at Sandia National Labs and as Principal Deputy 
Assistant Secretary for Defense Programs at the Department of 
Energy. He is currently the Deputy Chief Executive of Lockheed 
Martin's Atomic Weapons Establishment.
    Ambassador Brooks, a Navy veteran with 30 years of service, 
previously served as Chief Strategic Arms Reduction Negotiator 
during the START I Treaty negotiations and as Assistant 
Director for Strategic and Nuclear Affairs at the United States 
Arms Control and Disarmament Agency. He is currently Vice 
President and Director of Policy, Strategy, and Forces Division 
at the Center for Naval Analyses.
    Dr. Winkenwerder, a specialist in internal medicine, 
previously served in senior management positions at several 
health care providers, including Prudential Health Care, Emory 
Health Care, and as Vice President of Blue Cross/Blue Shield of 
Massachusetts and is currently a health care consultant.
    Dr. Sambur has had a 25-year career at ITT Industries 
serving in a variety of senior management positions, including 
President of ITT Aerospace and Communications and President of 
ITT Defense. Since leaving ITT earlier this year, he has served 
as a consultant to the company.
    Ms. Walker is a lawyer who previously served in Government 
as Principal Deputy Assistant Attorney General for Land and 
Natural Resources, Deputy Solicitor at the Department of the 
Interior, and as Assistant Secretary for Environment, Safety 
and Health at the Department of Energy.
    I would now normally call upon Senator Warner, who is not 
yet able to be here, but I wonder if Senator Allard had a 
comment at this point. We would welcome it. If not, we would 
ask some questions of our nominees.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, I just want to thank you for 
holding the hearing and also compliment them on being willing 
to make the sacrifices that I am sure you are making now to 
serve in your various positions. I think it goes without saying 
that you accept immense responsibility at a most important and 
challenging time in our country's history. I want to thank you 
in advance for your efforts, for your dedication to duty, and 
for your overwhelming commitment to the members of our military 
service and to the security of the Nation. I am confident that 
all of you will serve the Nation well.
    Mr. Chairman, that is just a brief comment that I have, and 
I would ask that Senator Thurmond's statement be inserted for 
the record.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman.
    Mr. Chairman, I join you and Senator Warner in welcoming our 
distinguished group of nominees. The fact that we are holding this 
hearing while we are joined in negotiations with the House on the 
Defense Authorization Bill is significant. It demonstrates this 
committee's bipartisan effort to ensure the Department of Defense and 
the National Nuclear Security Administration have quality people in 
place to carry out their duties to provide for our Nation's security.
    Mr. Chairman, I believe each nominee will bring to the position for 
which they have been nominated unique and professional experience. They 
are highly qualified and most importantly dedicated to serving our 
Nation.
    To each of our nominees I want to express my support and that of 
this committee. I wish you success, and hope that you will consider the 
committee a partner in your efforts to improve the security of our 
Nation.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you very much.
    Today's nominees have all responded to the committee's 
prehearing policy questions and our standard questionnaire. 
These responses will be made part of the record.
    The committee has also received the required paperwork on 
each of the nominees and will be reviewing that paperwork to 
make sure that it is in accordance with the committee's 
requirements.
    Now, there are several standard questions that we ask every 
nominee who comes before the committee. First, we would note 
that in your response to advance policy questions, you agreed 
to appear as a witness before congressional committees when 
called and to ensure that briefings, testimony, and other 
communications are provided to Congress.
    So, the first question that I would ask each of you is, 
have you adhered to applicable laws and regulations governing 
conflict of interest? First, Dr. Beckner.
    Dr. Beckner. Yes, sir, I have.
    Chairman Levin. Ambassador.
    Ambassador Brooks. Yes, sir.
    Chairman Levin. Doctor.
    Dr. Winkenwerder. Yes.
    Dr. Sambur. Yes.
    Ms. Walker. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process? Dr. Beckner?
    Dr. Beckner. No, I have not.
    Ambassador Brooks. No, sir.
    Dr. Winkenwerder. No.
    Dr. Sambur. No, Mr. Chairman.
    Ms. Walker. No, sir.
    Chairman Levin. Will you ensure that the Department 
complies with deadlines established for requested 
communications, including prepared testimony and questions for 
the record and hearings?
    Dr. Beckner. Yes, sir.
    Ambassador Brooks. Yes, sir.
    Dr. Winkenwerder. Yes, Mr. Chairman.
    Dr. Sambur. Yes.
    Ms. Walker. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Beckner. Yes, sir.
    Ambassador Brooks. Yes, sir.
    Dr. Winkenwerder. Yes, sir.
    Dr. Sambur. Yes, sir.
    Ms. Walker. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Dr. Beckner. Yes.
    Ambassador Brooks. Yes, sir.
    Dr. Winkenwerder. Yes, sir.
    Dr. Sambur. Yes, sir.
    Ms. Walker. Yes, sir.
    Chairman Levin. At this point I would like to recognize 
each of our witnesses for any opening remarks that they would 
like to make, and I would begin with Dr. Beckner.

STATEMENT OF EVERET BECKNER, PH.D., TO BE DEPUTY ADMINISTRATOR 
 FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Dr. Beckner. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to come before you to 
discuss my qualifications to become Deputy Administrator for 
Defense Programs for the National Nuclear Security 
Administration.
    Mr. Chairman, I thank you for moving expeditiously in 
arranging this hearing.
    I also want to thank Senator Domenici for his kind 
introduction. I am very grateful for his support of my 
candidacy and for the leadership and support he gives this 
entire endeavor.
    I am also grateful to the President, to Secretary Abraham, 
and to Administrator Gordon for their confidence and the 
opportunity to be considered for this position.
    I promised several people that I would be brief with my 
statement and I will. I have been either deeply or peripherally 
involved in this important national security program for more 
than 35 years. Although only 7 of those years have been in 
Washington assignments, some people would say that is a good 
ratio of work to anguish, and I would tend to agree with that 
view. Washington exposure is obviously important in order to 
know how the Government works and why it is often difficult to 
move things forward.
    I remember early in my first Washington assignment under 
Secretary Watkins during the Bush administration, his Under 
Secretary John Tuck frequently inquired at the end of a typical 
day--did we advance the ball today? I am sure I do not have to 
tell you that is a good description of a typical day in 
Washington.
    I think this job does take a lot of perseverance and 
determination. Being just two generations removed from 
grandparents who moved from east Texas to homestead on the 
plains of northeastern New Mexico early in the 20th Century, in 
order to get title to just 80 acres of barren farmland, 
probably provides me with the right genetic base for this job. 
They did not expect it, but they also had to deal with the 
drought and the Depression of the 1930s--again, this was 
probably pretty good experience for me to reflect on.
    Let me now return to the present and to the future, which I 
anticipate, if confirmed. The job of Deputy Administrator for 
Defense Programs in the new National Nuclear Security 
Administration is a work in progress. Administrator Gordon has 
had both the enviable and the unenviable task of setting up 
NNSA and organizing it to do the job which Congress mandated.
    For those of you who are students of history--and I am sure 
a number of you are--you will know that the birth of nuclear 
weapons in 1945 led to the agonizing necessity to set up the 
original Atomic Energy Commission, the AEC. I actually worked 
for the AEC for the first 10 years of my career at Sandia 
which, on truly rare occasions, required that I go to AEC 
headquarters in Germantown and find the place in the woods of 
rural Maryland. There were not many people in Germantown back 
then, and most of them worried about either the nuclear weapons 
production program or the birthing problems of getting the 
Nation's civilian nuclear reactor program on its feet.
    The 1970s brought the Energy Research and Development 
Administration (ERDA) as the replacement for the AEC, to 
broaden the mission of the agency, to reflect the newly 
recognized importance of energy. Several years later, Congress 
decided an even larger agency, the Department of Energy, was 
required to concentrate the Federal energy programs in a single 
organization.
    Now with many other changes having occurred in the world, 
not the least being the collapse of the Soviet Union, the end 
of the Cold War, and the START agreements, Congress has 
responded with this semi-autonomous agency, NNSA. As I see it, 
my job, if confirmed, is to ensure to the President that this 
country's enduring nuclear weapons stockpile remains safe, 
secure, and reliable, and to make this NNSA program responsive 
to the evolving requirements of the Federal Government in a 
world of today and the decades to come, for as long as the 
Nation requires a nuclear deterrent.
    I sense that Congress wants less bureaucracy and more 
output with fewer problems along the way. You want program 
output which enhances security, which maintains and enhances 
the safety, reliability, and performance of the nuclear 
stockpile, and which bolsters U.S. leadership in science and 
technology. I believe President Bush and General Gordon want 
these same results, and if confirmed, it is certainly what I 
will be striving to accomplish in the next few years.
    However, I know enough about doing business in this town to 
know that, though entirely reasonable and laudable, these 
objectives will be hard to meet, not because they are 
controversial or even debatable, but because we must make a 
large course correction in a battleship running at full 
throttle. If confirmed, I will need the dedicated and 
deliberate support of this committee, the Senate, the House of 
Representatives, the administration, indeed the entire Federal 
support structure attached to this program in order to reach 
those goals.
    The ingredient which I often find missing in endeavors of 
this magnitude is that of trust. To simplify the way we do work 
in NNSA requires that we place more trust in the Federal 
workforce and the contractors who actually do that work, that 
we check everything we do to be sure that it works, but that we 
do not ``check the checkers'' and on and on. We must also have 
a system in place that does not tolerate waste, fraud, or 
abuse. All this, and still our highest requirement is to do the 
nuclear weapons job right, with no possibility of failing to 
provide the country with the nuclear deterrent that it 
requires.
    The infamous events of September 11 serve as a reminder 
that we cannot take our security for granted. Since the weapons 
complex lacks the redundancy it once had during the Cold War, I 
have been advised that enhanced security measures are in place 
and that additional measures are under consideration. If 
confirmed, one of my top priorities will be to review practices 
and procedures to ensure that the uniquely skilled men and 
women of the weapons complex can carry out their national 
security responsibilities.
    Let me say just a few more words about my qualifications.
    Over and above the obvious technical and management 
credentials and experience base, I think it is important that 
the committee be comfortable with my personal commitment and 
dedication to this job. It is the culmination of a lifetime of 
work for me, starting as a research scientist at what was then 
a 10-year-old Sandia Laboratory and evolving into senior 
management responsibilities have included both the United 
States and the United Kingdom nuclear weapons programs. I do 
not like to say that I am an old hand at this work because in 
this job no one ever knows enough to rely comfortably only on 
experience. What counts most, I believe, is that I know when to 
ask for help, whether it is from the laboratories, or from the 
production plants, or Congress.
    Next, though, I believe you will want me to make the hard 
decisions to move the program forward. That is where experience 
does count. We have urgent program needs in both research and 
production. We have urgent needs in facilities to upgrade the 
complex. We have urgent needs to develop new technical 
capabilities so that we recruit and retain the best and the 
brightest people to assure our capabilities for the future. 
That is where I think I will earn my paycheck. I believe in 
systems analysis and using the best information available to 
find the right solutions not by intuition or accommodation, but 
by hard-headed analysis. If confirmed, that is what you will 
get from me. I hope that is what you want.
    Mr. Chairman, I do not underestimate the difficulty of the 
task. However, if confirmed, I know it will be the best job I 
have ever had because it offers the most opportunity for 
continuing success in a truly important program. I like that 
way of living.
    I would be pleased to answer questions, Mr. Chairman. Thank 
you.
    Chairman Levin. Thank you, Dr. Beckner.
    Ambassador Brooks.

    STATEMENT OF AMBASSADOR LINTON F. BROOKS, TO BE DEPUTY 
 ADMINISTRATOR FOR DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL 
                NUCLEAR SECURITY ADMINISTRATION

    Ambassador Brooks. Mr. Chairman, I do not have a prepared 
statement since I had the opportunity to make most of the 
policy points I would have wanted to make in response to the 
committee's questions. I would like to make four quick points.
    First, I am deeply honored by the President's, Secretary 
Abraham's, and General Gordon's willingness to entrust me with 
this responsibility.
    Second, I am grateful for the committee's willingness to 
review my qualifications and, even more, for the committee's 
strong support of the programs I hope to be responsible for in 
the past and, I hope, in the future.
    Third, I am immensely sobered by the events of the 11th of 
September. What they show me is a degree of sophistication and 
complexity that I had not previously recognized on the part of 
terrorism. They seem to me to make the jobs of securing nuclear 
weapons and nuclear materials even more urgent and even more 
important than they were.
    Finally, like my colleague, I have spent my whole life 
working in the national security business, and I look forward, 
if the committee and the Senate choose to confirm me, to the 
opportunity to continue that over the next few years in this 
position.
    Thank you, sir.
    Chairman Levin. Thank you, Ambassador. Dr. Winkenwerder.

 STATEMENT OF WILLIAM WINKENWERDER, JR., M.D., TO BE ASSISTANT 
            SECRETARY OF DEFENSE FOR HEALTH AFFAIRS

    Dr. Winkenwerder. Mr. Chairman, rather than a statement for 
the record, I would like to just make brief opening remarks.
    First of all, I would very much like to thank Senator 
Kennedy for his kind and very generous remarks. I appreciate 
that very much.
    Mr. Chairman and members of the committee, it is indeed a 
great honor and a privilege for me to appear before you today 
as the nominee to be the next Assistant Secretary of Defense 
for Health Affairs. I am especially grateful to the President 
and to the Secretary of Defense for their confidence in me by 
nominating me for this position of significant responsibility.
    The events of September 11th blasted, I think for all of 
us, a resounding warning that we must be prepared. I take that 
warning personally in that, if confirmed, I will be responsible 
for overseeing the health, fitness, casualty prevention, and 
care of the men and women we ask to defend this country. If 
confirmed, my foremost priority will be to ensure that our 
military services have the capabilities and the support to 
carry out our medical readiness missions and our preparedness 
in all scenarios.
    Also important are many challenges facing the military 
health care system in this country today, many of which carry 
implications for the military health care system and the 
TRICARE health care program. Concerns for the quality of care, 
patient safety and patient rights, the implementation of the 
Health Insurance Portability and Accountability Act (HIPAA) 
legislation, advances in medical practice, and the ever-
increasing rise in the cost of health care delivery are just a 
sampling of the issues that need to be tackled.
    Should I be confirmed, I will promise to work very closely 
with this committee and with other Federal agencies with the 
Surgeons General of the services and with the leadership of the 
Defense Department to address these challenges such that 
military beneficiaries continue to enjoy the well-deserved 
health benefits that they receive.
    The responsibilities of the position for which I have been 
nominated are formidable. If confirmed, I look forward to 
working with Congress to ensure that military medicine is 
prepared to meet the health needs of our Armed Forces and that 
the military health system continues to provide world-class 
care, which I know is a goal of Secretary Rumsfeld, for all of 
its beneficiaries.
    Finally, let me just say embarking on a career in public 
service brings many challenges as well. In that regard, I want 
to sincerely thank my family for their understanding and 
support in this new endeavor. It means a lot to me.
    Thank you, Mr. Chairman and members of the committee. I 
look forward to any questions you might have.
    Chairman Levin. Thank you.
    Dr. Sambur.

STATEMENT OF MARVIN R. SAMBUR, PH.D., TO BE ASSISTANT SECRETARY 
                OF THE AIR FORCE FOR ACQUISITION

    Dr. Sambur. Thank you, Mr. Chairman and other distinguished 
members of the committee. I am honored to appear before you 
this afternoon as President Bush's nominee to serve as the 
Assistant Secretary of the Air Force for Acquisition.
    I would like to thank the President, the Secretary of 
Defense, and the Secretary of the Air Force for their support 
and confidence in me by recommending me for this position.
    I thank you, Mr. Chairman and members of the committee, for 
taking time from your busy schedule, particularly during this 
very trying time, to conduct this hearing.
    To those who have spent the hours preparing me for the 
moment and for the continuing support and constant love from my 
family, my wife Arlene, my daughter Beth, and my son Ian, I 
again say thank you.
    If confirmed, now more than ever, in the wake of the 
September 11th attack on our Nation, I look forward to the 
opportunity to serve my country and especially to serve the men 
and women of the United States Air Force. Mr. Chairman, I 
cannot think of any finer job directly impacting the lives of 
Air Force personnel than the position for which I have been 
nominated. If confirmed to this high honor, I pledge my full 
support and energies to making Air Force Acquisition the 
absolute role model for the entire Federal Government in 
integrity and excellence.
    In closing, if confirmed, I look forward to an active 
relationship with you, Mr. Chairman, and the members of this 
committee as we work together to keep our Air Force the best in 
the world.
    Thank you.
    Chairman Levin. Thank you, Dr. Sambur.
    Ms. Walker.

 STATEMENT OF MARY L. WALKER, TO BE GENERAL COUNSEL OF THE AIR 
                             FORCE

    Ms. Walker. Thank you. Thank you, Mr. Chairman and members 
of the committee. I am honored to be here as well.
    I only intend to make brief remarks and would ask that the 
balance of my statement be made a part of the record.
    Chairman Levin. It will be.
    Ms. Walker. I want to thank the President, Secretary 
Rumsfeld, and Secretary Roche for the confidence they have 
expressed in me in considering me for the position of General 
Counsel for the Air Force.
    The Department of the Air Force is a magnificent 
organization with a great team of dedicated and talented people 
performing a crucial mission. Secretary Roche is a man of great 
vision and talent, and I would look forward to working with him 
and other senior members of the Department with the goal of 
making a lasting contribution to the security of our Nation.
    Every day the brave men and women of the Air Force, 
including the excellent lawyers at the General Counsel's 
office, have the satisfaction, when they go to work, of knowing 
that their efforts are serving the national defense and helping 
to preserve freedom around the world. If you honor me with 
confirmation, at least for a brief period, I will be able to 
join them in this important effort. It would be my sincere 
privilege to do so. I can think of no more important place to 
serve my country at this time.
    I am happy to answer any questions you might have. Thank 
you.
    [The prepared statement of Ms. Walker follows:]
                  Prepared Statement by Mary L. Walker
    Mr. Chairman, Senator Warner, and members of the committee, I am 
honored to be considered as the President's nominee for General Counsel 
of the Department of the Air Force. At this critical time in our 
Nation's history, I can think of no better place to serve our Nation, 
and I am deeply grateful to the President, Secretary Rumsfeld and 
Secretary Roche for this opportunity.
    I have practiced law for more than 20 years, specializing in land 
use and natural resources law, but also handling many other matters, 
including labor and contract issues and business litigation. While most 
of my career has been spent in California, I have also previously 
served the Federal Government in Washington, DC, and I am pleased to 
now reside in the great Commonwealth of Virginia.
    I began my career as counsel to Southern Pacific Company in San 
Francisco in the early 1970s, representing the railroad, pipeline, 
trucking and land subsidiaries in eight western states. It was a 
formative time in the development of environmental and natural 
resources law, and I was involved in helping Southern Pacific comply 
with the Clean Air Act and the Federal Water Pollution Control Act from 
the early days of those landmark laws. Together with the U.S. Coast 
Guard, and several state governments, I taught seminars to the 
company's mid-level managers systemwide on the new Federal statutes. 
Since then, I've worked on many other environmental and land use 
issues, representing local governments, private landowners, and 
companies. I have been both the lawyer advising the decision-maker as 
well as the decision-maker.
    In my various roles, I have sought to understand the concerns of 
competing interests in working with environmental and public interest 
groups. I found the key is often establishing open communication and 
retaining a willingness to hear each other's perspectives, while 
working toward common goals. For example, as a U.S. Commissioner 
serving on the Inter American Tropical Tuna Commission, from the late 
1980s to the mid 1990s, I worked with environmental and public interest 
groups, the fishing industry, the Commission's technical staff and the 
State Department to reduce dolphin mortality in the tuna catch to 
biological insignificance, while at the same time, maintaining a 
healthy fishery that now feeds many nations. This was not an easy task. 
It took the combined will of many people over many years, but in the 
end, we achieved a great result. I was pleased to testify in favor of 
Senator Ted Stevens' legislation in 1996 that recognized and built upon 
this effort.
    In the early 1980s, I had the privilege of serving the Federal 
Government as Deputy Assistant Attorney General in the Land & Natural 
Resources Division of the Justice Department, enforcing the Nation's 
environmental and natural resource laws. I worked with career Justice 
Department lawyers to build a foundation of judicial opinions 
supporting the Federal Government's new Superfund law. We also created 
the Environmental Crimes Unit and helped train the first investigators 
supporting the Federal Government's criminal enforcement effort. These 
included successful undercover operations to stem the tide of illegal 
international trade in endangered species.
    As the Deputy Solicitor for the Department of the Interior in the 
mid 1980s, I experienced first hand the challenges faced by a 
department with many diverse missions. Among other tasks, I worked with 
the Pacific Northwest Indian tribes on the team that negotiated the 
Pacific Salmon Treaty with Canada; I helped defend the offshore oil 
leasing cases; I supervised the team that drafted the first natural 
resources damage regulations; and I was on the team that negotiated the 
Bering Strait boundary with the USSR.
    As Assistant Secretary of the Department of Energy for Environment, 
Safety & Health in the late 1980s, I worked with talented career staff 
in both headquarters and the field offices to assure that environmental 
compliance of the nuclear weapons program was properly undertaken at 
the Department's facilities. We worked in cooperation with Congress, 
other Federal agencies, and the states, often in areas where regulatory 
jurisdiction was unclear, in order to better address the legacy of 
environmental issues at the Department's facilities and to effect full 
compliance. I also worked closely with the Defense Department 
concerning nuclear safety standards involving the nuclear Navy. It was 
during my tenure at DOE that the Chernobyl incident occurred at Kiev, 
and we were very involved in analyzing and presenting to Congress the 
causes of that event.
    In the private sector these past few years, I have represented a 
diverse range of clients, ranging from high tech and biotechnology 
companies to shipyards, the seafood industry and other, more 
traditional industries. I have served my community in several pro bono 
board relationships, including the San Diego Biocommerce Association 
(``BIOCOM''), Floresta, Inc., the Professional Women's Fellowship, and 
the Endowment for Community Leadership. I have also worked closely with 
the Navy's lawyers in San Diego on regulatory issues under the Federal 
Water Pollution Control Act.
    If confirmed, I would look forward to using my background and 
experience to serve the Air Force and to advise the Air Force Secretary 
and the Assistant Secretaries in their efforts to renew and rebuild the 
force structure. I would also look forward to working with this 
committee and assisting you in whatever way I can. This is a crucial 
time in our country's history and it would be a privilege to serve in 
this role at this time.
    I would be pleased to answer any questions you might have for me.

    Chairman Levin. Thank you very much.
    I think we will have rounds of 8 minutes. First, Dr. 
Beckner.
    Dr. Beckner, to your knowledge, is there any reason 
associated with the safety, security, and reliability of the 
current stockpile to conduct nuclear weapons tests at this 
time?
    Dr. Beckner. No.
    Chairman Levin. The Stockpile Stewardship program has made 
significant progress since you were last there in 1995. In 
certain instances, the new Stockpile Stewardship tools have 
enabled resolution of problems that in the past would have 
required an underground nuclear test. These tools have also 
allowed a greater understanding of the weapons.
    Do you feel that the tools that are underway as part of the 
Stockpile Stewardship program will be successful in addressing 
the long-term needs of the stockpile?
    Dr. Beckner. Yes, I do, but it will be a long and arduous 
course that we will have to stay. It is a very difficult task 
and one which, in the final analysis, means we rely on the 
confidence of the people who do the work at the laboratories 
and in the plants. The feature that I think we will have to 
work hardest to protect is the confidence of the people, the 
people who are in the trenches as it were. That will be my 
major concern.
    Chairman Levin. Thank you.
    My last question for you is the following: The Department 
of Energy and the National Nuclear Security Administration have 
struggled to adequately plan and to execute projects, and to 
address this problem, an office of project management was 
created. Will you continue to fully support and fund this 
effort to avoid the problems of persistent cost and schedule 
overruns?
    Dr. Beckner. The basic answer is yes. But let me say a 
little more than that, and I have said this previously in 
answer to some of the questions which were provided to me 
earlier by the committee. I believe it is important that we 
weigh all of our problems at any given time when we make our 
decisions. We cannot make decisions in isolation from other 
parts of the program. I want to be sure that we do the proper 
analysis so that we know that we are working on the most 
important problems, that we are funding the most important 
problems, that we are seeking funds for the most important 
problems, so that we do the right thing.
    Within that context, there is no question in my mind we 
have serious a problem in the complex with infrastructure. I 
think we are moving in the right direction, and I support that.
    Chairman Levin. Thank you.
    Ambassador Brooks, given the recent terrorist attacks 
highlighting where the major threats are to this Nation, do you 
believe that the Department of Energy should increase its 
efforts to secure nuclear materials and nuclear weapons usable 
materials in Russia?
    Ambassador Brooks. Yes, sir, I do, but I need to qualify 
that ``increase its efforts'' may or may not translate into 
more money. It also translates into more urgency. In some areas 
in Russia, the limiting factor is not funding but access, and I 
believe that both we and the Russian Federation, in recognizing 
the changed environment reflected by 11 September, need to move 
more quickly to resolve these issues. There is no question that 
securing nuclear materials and weapons in Russia is one of the 
most important responsibilities that I will have, if confirmed.
    Chairman Levin. Are you familiar with the task force report 
that Senator Baker and former White House Counsel Cutler 
produced?
    Ambassador Brooks. Yes, sir.
    Chairman Levin. You are familiar with the conclusions that 
they reached about the major threats to this country?
    Ambassador Brooks. Yes, sir, I am, and I think that those 
conclusions are sound and responsible. I found that report very 
helpful in preparing for my new responsibilities.
    As I said in my answer to the committee's questions, they 
were not asked to balance funding requirements against other 
priorities, so I think it would be dishonest to suggest that I 
am going to achieve the tripling of funding that they would 
call for. But if I had that tripling of funding, I could do 
good things for the country with it.
    Chairman Levin. The Department of Energy nonproliferation 
programs are engaging thousands of scientists and engineers in 
Russia and other countries of the former Soviet Union, but have 
provided relatively few permanent full-time jobs. It is 
important to provide work for scientists and engineers who 
continue to be employees at their own institutes so that they 
can remain in Russia. But it is also important to begin to work 
to establish permanent full-time jobs outside of those 
institutes where necessary. It is particularly true because 
many are losing their jobs as Russia downsizes their nuclear 
weapons complex.
    Would you agree that it is important to provide that kind 
of employment for those scientists?
    Ambassador Brooks. Absolutely, and to do that, we have to 
help transform that weapons complex into something that is more 
appropriate for the modern world.
    Chairman Levin. Do you know offhand how many scientists and 
engineers are in permanent, full-time jobs as a result of the 
DOE's efforts?
    Ambassador Brooks. Only a few hundred are in permanent, 
full-time jobs. There have been tens of thousands who have been 
employed in part-time jobs, about 10,000 through the Intiatives 
for Proliferation Prevention, another 35,000 through the State 
Department's comparable program on science and technology.
    We are looking this year, as I understand it, at having 
several hundred employed as part of this new kidney dialysis 
facility at Avangard. We are looking at several hundred more 
employed in coal mining and oil drilling radar systems, and 
there are some other projects of comparable numbers. But the 
permanent employment thus far is measured in hundreds rather 
than thousands.
    Chairman Levin. Thank you.
    Dr. Winkenwerder, our committee expects that you will, if 
confirmed, exert a strong influence on the future of the 
military health system, and the next generation of managed care 
support contracts is a major feature of that future. The 
President has nominated you for many reasons, but one is surely 
your strong experience in the delivery of health care in the 
commercial world. Your background and experience are going to 
be invaluable as the Department makes changes to move the 
military health system forward.
    We understand the Department is going to conduct an 
industry forum at the end of the month to discuss fundamental 
changes in contracting for health care administration and 
services. I am wondering, are you going to be involved in the 
design of the next generation of managed care support 
contracts? Have you been briefed on the recommendations of the 
TRICARE management activity for the next generation of those 
contracts? Are the proposals and recommendations, if you are 
familiar with them, consistent with what you believe is an 
appropriate approach for the Department to take?
    Dr. Winkenwerder. Thank you, Senator, for that question. A 
very important matter to the future of the TRICARE program is 
the whole contracting structure or infrastructure for the 
program. The quick answer to your question is that yes, I 
definitely intend to be intimately involved with that. To date, 
I have been briefed in a very general way about this upcoming 
symposium or session that is to be held and about the concepts 
of business that we are thinking about.
    It would be my intention, if confirmed, to review those 
concepts and to review all that has currently been proposed 
and, frankly, to hopefully take advantage of my experience in 
the private sector to bring forward ideas and thoughts about 
how we can best do that contracting because it really is 
fundamentally important to how the program works since so much 
of the care is outside of the military treatment facilities but 
in the ``private sector.''
    Chairman Levin. This is my last question for this round. 
Some of us have recently seen a presentation called Dark 
Winter, which is an idea of what biological terrorism could 
produce with smallpox in this country. Are you familiar with 
the issues of biological terrorism? How would you act to make 
sure that our Department is fully prepared in conjunction with 
the Public Health Service and all the other facilities at the 
local, State, and Federal level to respond to a terrorist 
attack using a biological agent?
    Dr. Winkenwerder. Senator, I have not seen the report of 
the Dark Winter planning or preparation scenario, but I would 
hope to get briefed on that and a whole manner of other matters 
relating to bioterrorism and efforts that we have in place and 
that we might put into place in the near future to further 
prevent or minimize any harm from any attack in the way of 
bioterrorism.
    I could just tell you this, that if confirmed, the central 
principle underlying all of my efforts to lead the military 
health system would be simply this: Be prepared. Even though 
the risks of certain events might be relatively small, if the 
outcomes associated with those events are devastating or large, 
I think our best approach is to be prepared. There are all 
manner of ways that we can be prepared, and part of my task, I 
think, is going to be to prioritize those risks and to do those 
things that would have the most benefit for the dollars spent.
    Chairman Levin. Thank you very much, Doctor.
    I'm going to call on Senator Warner next. I think he takes 
precedence.
    Chairman Warner. Mr. Chairman, I am going to yield to 
Senator Landrieu and Senator Allard and ask that my statement 
be submitted for the record. I believe Senator Landrieu has an 
understandable need to depart, and why does she not take a 
question here?
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in extending a warm welcome to our nominees and their 
families. Thank you for your willingness to serve at this challenging 
and demanding time in our Nation's history.
    Ambassador Brooks has had a distinguished career of government 
service. During the previous Bush administration, he served as the 
Assistant Director for Strategic and Nuclear Affairs at the United 
States Arms Control and Disarmament Agency, and, also, in the State 
Department as Head of the United States Delegation on Nuclear and Space 
Talks and Chief Strategic Arms Reductions (START) negotiator. He was 
instrumental in the final preparation of the START I and START II 
Treaties. Prior to that, he served as Director of Arms Control on the 
staff of the National Security Council after completing a distinguished 
30-year Navy career as a nuclear qualified officer.
    Dr. Sambur has had a distinguished career in the private sector as 
a senior executive of ITT Industries. As President of ITT Defense and 
ITT Aerospace and Communications, Dr. Sambur has overseen multi-million 
dollar programs involving military tactical communications, production 
of space borne navigation and meteorological satellites, and a wide 
array of Defense-related programs.
    Dr. William Winkenwerder has compiled an impressive career in 
medicine, academia, business, and government. He is a board-certified 
physician who served in the Health Care Financing Administration of the 
U.S. Department of Health and Human Services from 1987 to 1988 as a 
Special Assistant to the Administrator responsible for policy 
coordination and development of payment issues in Medicare and 
Medicaid. He was a member of Emory University's faculty from 1996 to 
1998 serving as Associate Vice President for Health Affairs. Dr. 
Winkenwerder has extensive executive experience on the business side of 
health care as Vice Chairman in the Office of the CEO of Blue Cross and 
Blue Shield of Massachusetts and Vice President and Chief Medical 
Officer for Southern Operations with Prudential Health Care. Thank you 
for your willingness to return to government service
    Dr. Everet Beckner, if confirmed, will also be resuming his already 
exceptional career of government service. From 1962 through 1990, he 
was employed at Sandia National Laboratories in Albuquerque, New 
Mexico, rising from Staff Member to Vice President of Defense and 
Energy Programs. From 1991 to 1995, Dr. Beckner as the Principal Deputy 
Assistant Secretary of Energy for Defense Programs. With his subsequent 
experience in the private sector, he is highly qualified for this 
vitally important position in the Department of Energy.
    Ms. Walker also has a record of public service and achievements in 
law. In the 1980's she served the Federal Government in several 
positions: as Assistant Secretary for Environment, Safety and Health 
with the Department of Energy; as Deputy Solicitor of the Department of 
Interior; and as Principal Deputy Assistant Attorney General of the 
Land & Natural Resources Division of the Department of Justice. She 
subsequently engaged in a diverse legal practice representing a variety 
of private and municipal government clients. I welcome all of you.

    Senator Landrieu. Thank you, Senator Warner. I sure 
appreciate that. If I could just have one moment because, 
unfortunately, I do have to get to another meeting. But I 
wanted to come and congratulate all of you on your nominations 
and just to say I am going to submit my statement for the 
record, if there is no objection, Mr. Chairman.
    The subject areas for which two of the nominees will have 
responsibility if confirmed fall within the jurisdiction of the 
Emerging Threats and Capabilities Subcommittee. These are the 
Assistant Secretary of the Air Force for Acquisition and the 
Deputy Administrator for Defense Nuclear Nonproliferation. 
Thank you, Mr. Sambur, for your commitment to excellence and 
efficiency in purchasing. We look forward to working with you 
on this, because at every time, but particularly at this time, 
we have to be very careful and strategic about our investments. 
I want also to call to everyone's attention and to thank you 
for your comments about serving our Nation at this time.
    Senator Sam Nunn, who has done wonderful work in this area 
of nonproliferation, Ambassador Brooks, wrote a beautiful 
editorial a couple of weeks ago that said the terrorists' 
capacity for killing was restricted only by the power of their 
weapons that they had at hand. We all have great responsibility 
in this area, and many of you we will be working with directly.
    I look forward to working with you all on the great 
challenges ahead. I thank you for your willingness to serve 
because our country needs you. Thank you.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    Thank you, Mr. Chairman, one of the greatest powers entrusted to 
Congress is the power to confirm executive appointments. Today, these 
appointments and confirmations are even more important as we engage in 
a long war with those terrorists and their supporters who threatened 
our way of life on September 11. This war will have traditional 
aspects, but it will also be a new and silent type of war. From my 
vantage point, as Chairwoman of the Subcommittee on Emerging Threats 
and Capabilities, a key player on behalf of those who favor liberty and 
democracy in this silent war will be the National Nuclear Safety 
Administration. From the protection and safety of our nuclear 
stockpiles--to the carrying out of the Nunn-Lugar programs to ensure 
nuclear materials are reduced and kept out of the hands of those to 
whom they do not belong--the NNSA's mission has never been so critical.
    As Pope John Paul said in 1981 on a visit to Hiroshima, ``From now 
on, it is only through a conscious choice and through a deliberate 
policy that humanity can survive.'' Those words rang true at the height 
of the Cold War. The Cold War is now over, but the Pope's words are 
still prophetic and appropriate as we enter this silent war.
    America must secure its own backyard. Our nuclear inventory must 
remain both workable, if the unfortunate need for nuclear weaponry 
should arise, and the inventory must remain safely in the hands of the 
American military. Efforts must be undertaken to gird our nuclear 
arsenal from those wishing to abscond with nuclear weapons or 
perpetrate a terrorist attack on our nuclear stockpiles.
    Moreover, we must also look abroad to ensure that those nations, 
especially Russia and the independent states formerly in the Soviet 
Union, with nuclear weapons do not allow them to fall into the hands of 
terrorists and rogue nations. As Chairwoman of the Emerging Threats and 
Capabilities Subcommittee, we must take all actions necessary to 
strengthen our partnerships with Russia on non-proliferation and 
weapons reduction programs.
    I am encouraged that the administration has chosen two gentlemen 
with keen awareness of these concerns to serve as Deputies at NNSA. 
Ambassador Brooks, I enjoyed our conversation and visit a couple of 
weeks ago. Please know we share a common vision on our Russian 
partnership.
    Furthermore, General Gordon, Director at NNSA, has also expressed 
his faith in your nomination. Dr. Beckner, we have not met, but your 
credentials are worthy, and  hope we can meet soon. I look forward to 
working with both of you closely in the future upon your confirmation.

    Chairman Levin. Thank you.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman, and thank you, 
Senator Warner.
    I want to direct my first question to Ms. Walker. Due to 
the recent events that have transpired, there's a necessity of 
all the Federal agencies to work closer together, particularly 
the Defense Department and military affairs. Do you see any 
legal or regulatory issues out there that would make it 
difficult for the Department of Defense to work with other 
Federal agencies during this time period?
    Ms. Walker. Thank you, Senator, for that question.
    I know that coordination with other agencies is going to be 
very important and military affairs is, of course, one specific 
area of the General Counsel's office that is very important to 
its mission.
    I know of no impediments to working with other agencies at 
this time. However, we will be looking at all the necessary 
coordination that needs to take place and we will be doing our 
very best to do that. I am very glad that I have had prior 
Government service, which I understand other General Counsels 
before me, if I am confirmed in that position, have not had, 
because I think it really helps facilitate those relationships 
where they are going to need to be made for the mission. So, I 
appreciate your concern and would be looking at that if I was 
confirmed.
    Senator Allard. If you run into those kind of problems, I 
hope you will keep us informed of something that needs to be 
done.
    Ms. Walker. Absolutely. I will. Thank you.
    Senator Allard. Also, the next question I would like to 
direct to Dr. Winkenwerder. As you know, I am a veterinarian, 
so I take a particular interest in animal diseases such as 
anthrax. In light of the recent events down in Florida, it 
highlights the issue. What do you believe the risks are to 
military personnel, and what action should we be taking to 
mitigate these risks? We have had a number of hearings on the 
vaccination for anthrax. I would be glad to hear your comments 
on that.
    Dr. Winkenwerder. Senator, I cannot speak as an expert with 
respect to the level of risks that would possibly be directly 
applicable to the men and women who are in active duty or even 
on bases here in the United States. But the events of September 
11 I think raise the specter that our adversaries would use any 
means they could put into their hands to inflict harm on us and 
on our military.
    We have an active anthrax vaccine program. A significant 
number of the military have been either fully or partly 
immunized. There are issues with respect to the adequate 
manufacture and production of anthrax vaccine. It would be 
among, if not the highest priority, as I step into this 
position if confirmed, to do everything in my power working not 
only with leadership in the Department of Defense, but also 
with the people in Health and Human Services and Homeland 
Security, to the extent that they are also involved, to 
expedite the production and manufacture of an anthrax vaccine 
that is safe and effective and to ensure that on a long-term 
basis we have a stable source, a stable manufacturer, that is 
well positioned to provide as much of the vaccine as not only 
the military needs but the rest of the country may need.
    Senator Allard. It seems to me that there is an opportunity 
in your area to have some joint efforts that would provide some 
efficiencies and probably cost savings to the taxpayer. Are 
there any barriers that you see right now where it would 
prevent you from working in a joint environment? For example, 
the Veterans Administration. It seems like there could be some 
savings there, for example, on pharmaceutical items. Would you 
comment on that?
    Dr. Winkenwerder. It is my view that we need to do a better 
job communicating, coordinating, and avoiding not only 
duplication of effort but making things more seamless between 
the Veterans Administration and the Department of Defense 
Health Affairs operations. I would be very committed to working 
with those that are already working on this problem.
    We have a committee that meets on a bimonthly basis to look 
at opportunities for better coordination. As you know, there is 
a presidential task force that was recently commissioned on 
that very issue. I look forward to working with the task force 
members and the leadership of the task force to try to 
implement the recommendations that they may come forward with.
    Senator Allard. Dr. Sambur, your position in working with 
transition technology requires a significant bit of 
communication between you and the ultimate users of your 
technology. You have this transition occurring and then the 
areas that you are trying to develop. What do you plan to do to 
enhance communication between yourself and the ultimate users 
of the technologies that you will be acquiring?
    Dr. Sambur. Thank you for that question.
    I think, if I am confirmed, the first action would be to 
increase communication and put an emphasis on that transition 
process. I believe where the failures occur are usually 
associated with the lack of emphasis and the lack of 
willingness to communicate and make sure that there is a 
process involved with that transition.
    Senator Allard. So, you think getting out and getting the 
job done and showing a willingness to communicate is the 
answer?
    Dr. Sambur. Basically emphasizing that you need to make it 
happen.
    Senator Allard. Dr. Beckner, I have one specific area that 
I am particularly interested in and that is the accelerated 
strategic computing initiative. That is where we are talking 
about basically increasing our computer capacity to 100 tera-
ops, which is 100 trillion mathematical operations per second, 
which would make that the fastest computer in the world. In 
your opinion, will our software be sophisticated enough and 
will there be sufficient demand by the weapons laboratory in 
2005 to justify this size of operating computing system?
    Dr. Beckner. What we have to go on at this time is the 
dramatic increase in computing power over the past 5 years 
within the program structure to the point where it is today, in 
the vicinity of 10 tera-ops as opposed to 100. 100 tera-ops is 
coming in another few years.
    To date, we have found that we have moved smoothly upward 
in capability, as the machines have been available. Software 
has been written and very successful, and the computers are 
absolutely loaded to the maximum capacity by the users. So, I 
would predict, since things have gone up so much over the last 
few years, that 100 tera-ops is a very reasonable goal and will 
be fully utilized.
    Senator Allard. I think a lot of individuals in this 
country assume that we have the capability to build a nuclear 
warhead from scratch, which we no longer have with the closure 
of Rocky Flats in Colorado. What is being done to move us 
toward some kind of conceptual design for a pit production 
facility? Can you share that with us without getting into the 
top secret category?
    Dr. Beckner. Yes. On the one hand, I am not yet fully 
informed. I have not been briefed in-depth, but I do know at 
least the basic structure of the path forward. The path forward 
relies, in the short term, on increasing the capability of the 
facilities at Los Alamos. Beyond that, however, it would appear 
to be necessary to build a new pit fabrication facility with 
the timing and the location to be worked out. The other thing 
that plays into this is really the question of the stockpile 
and the reviews that are presently ongoing as to the future 
size and composition of that stockpile which will tell us what 
size plant you need and what its capabilities need to be.
    It is not yet imperative that we have all the answers, but 
it will be soon. Over the next few years, it will be an 
important element of the job I have to do, to bring forward to 
Congress the requirements for that facility and to see if we 
can get you to support it.
    Senator Allard. My understanding is if we reach that point, 
we could require some testing. Is that correct?
    Dr. Beckner. I would not be prepared to say that at this 
time. I think I will have to know a lot more before I would 
answer in the affirmative.
    Senator Allard. Very good. Thank you.
    Mr. Chairman, thank you.
    Chairman Levin. Thank you, Senator Allard.
    Senator Warner.
    Senator Warner. Thank you.
    I apologize for being late, but the leadership and those 
Senators from the States that were struck by the terrorist 
attacks held a ceremony on the Capitol grounds this morning, 
and I was participating when this hearing started.
    Dr. Winkenwerder and others, having spent some time in that 
building myself, it is always nice to see all of you out here 
in a very friendly spirit at this time. But once, hopefully, 
you are confirmed by the Senate and you are back, you have got 
to become fighters and infighters for your own budget. Believe 
me, that is a rough arena. They built the Pentagon not unlike a 
boxing ring, if you ever stop to think about it. It has five 
instead of four sides, but you are going to have to get in 
there and struggle to get your budgets.
    Much of the budget before this committee and work on DOD 
authorization is predicated on events that preceded the 11th of 
September.
    That brings me to the question in your case, Dr. 
Winkenwerder, the reality now that this country could be faced 
with another cataclysmic problem as it relates to biological, 
or chemical or other terrorism. The Department has to think 
through how they can work with local communities to handle 
totally unanticipated numbers of casualties. I am sure you have 
given some thought to that, recognizing that you would be here 
today for a hearing and in all likelihood that you will assume 
this post. That's going to take some money. Are you going to be 
able to fight vigorously for that?
    Dr. Winkenwerder. Senator, I am fully prepared to fight for 
whatever resources we would deem at the Department would be 
important and necessary to have for bioterrorism protection.
    I think to your point earlier about local and civilian 
efforts, obviously our focal point has to be on protecting the 
men and women in the armed services, and we stand ready to help 
the civilian sector but it is not our primary and principal 
focus.
    That said, speaking outside the realm, for a moment, of my 
role at the Department of Defense, if confirmed, I can just 
tell you that I think--things that have already been stated, in 
terms of the local health departments, the State health 
departments are very fundamentally important to protection of 
the public health.
    What I would want to do, if confirmed, is to make sure that 
we are working very closely with the Centers for Disease 
Control at the Federal level, the Food and Drug Administration, 
other agencies at the Federal level, as well having good 
contacts and communication with the State and local levels to 
support where appropriate.
    Senator Warner. One of the great things in the aftermath of 
the 11th has been the unity of this Nation. The President has, 
I think, courageously struck the theme--we are all in it 
together. If a community had the misfortune of being hit and 
they needed 1,000 beds in 24 hours, my guess is the Department 
of Defense, unless FEMA has them tucked away somewhere, is 
going to be there on the spot. So, yes, your primary 
responsibility is for the uniformed personnel and their 
families. Always remember that phrase, I caution each of you, 
``and their families.''
    Now, Ambassador Brooks, we are fortunate as a country. You 
have a lot of experience in the area which you are undertaking. 
Given now the events of the 11th, I think you have to go back 
with your Secretary and reexamine that budget to see whether or 
not there are some domestic needs that would require some 
diversion of your budget for a period of time to take some 
precautionary steps. Are you willing to do that?
    Ambassador Brooks. Yes, sir. I think what is most 
attractive in that area is research and development. A number 
of the research and development efforts of the Department are 
directly related to protecting against chemical and biological 
as well as nuclear terrorism.
    Senator Warner. Well, true, but also nuclear waste. Now, 
that is an area for which everybody, from those of us sitting 
here in the Senate to your agency, has identified as a very 
high priority. Without spelling out the details here, you know 
that we have to direct our attention to that subject right 
away.
    Ambassador Brooks. Yes, sir.
    Senator Warner. You are aware of the reasons for that.
    Ambassador Brooks. Yes, sir.
    Senator Warner. Ms. Walker, I am going to read something to 
you, and I think you best just say you are going to answer it 
for the record.
    Ms. Walker. Yes, sir. [Laughter.]
    Senator Warner. I have known Secretary Rumsfeld since his 
days in the Nixon administration. We were both young men 
operating in that arena, so we have been personal friends for a 
long time. But I love to read some of his pronouncements. 
Listen to this one.
    In a speech last month, Secretary Rumsfeld announced a new 
initiative aimed at redundant Pentagon bureaucracy. He called 
for a transformation of the way the Department works and 
streamlining wherever possible. That is the introduction. As an 
example of redundancy, Secretary Rumsfeld noted that there are 
dozens of offices of General Counsel in the Department and that 
there is another General Counsel's office whose only job is to 
coordinate all the other General Counsel's offices.
    Now, you will answer that for the record, will you not? 
[Laughter.]
    Ms. Walker. I sure will, sir.
    [The information referred to follows:]

    I am familiar with Secretary Rumsfeld's Assistant SECAF for Space 
September 10th speech ``Bureaucracy to Battlefield.'' The Secretary 
identified the Pentagon bureaucracy as an enemy of sorts and discussed 
the need for transformation. One area he discussed was DOD's legal 
support structure, stating ``. . . maybe we need many of them. But I 
have a strong suspicion we need fewer than we have. We're going to take 
a hard look to find out.''
    I certainly support efforts to maximize efficiency, encourage 
cooperation, and eliminate duplication. If confirmed, I would work to 
increase efficiencies and seek ways to eliminate needless bureaucratic 
obstructions.
    The Air Force exists to defend our country and fight our Nation's 
wars. As such, all organizations within the Department must carefully 
consider how we contribute to that overall, defining mission. I am 
convinced that the Office of the Air Force General Counsel has a 
specific role in advancing the interests of the Department of the Air 
Force across a broad spectrum of responsibilities directly contributing 
to national defense. If confirmed, I will take great care to ensure the 
manning and resources of the Office of the Air Force General Counsel 
are appropriate to ensure the quality of legal support necessary to 
support the Department.

    Chairman Levin. You cannot get a better advisor than 
Senator Warner, I will tell you that right now. [Laughter.]
    Senator Warner. You may be in that arena pretty quickly.
    But having again served in the Department, I have the 
highest regard for the lawyers for the service Secretaries. 
This President and this Secretary of Defense have chosen three 
extraordinary individuals to serve in those posts. The lawyer 
is a very needed asset. So, do the best you can to show that 
you are going to be consistent in trying to reduce redundancy, 
but keep that staff that the Secretary and you feel is 
necessary.
    Ms. Walker. Yes, sir.
    Senator Warner. Mr. Chairman, I know that we have another 
hearing, and I am going to ask that some of my questions to 
these nominees be submitted for the record because both of us 
have responsibilities elsewhere. Do you have one or two and 
then I will follow up with just one?
    Chairman Levin. I do have some additional questions.
    Senator Warner. Why do you not go ahead with one or two of 
them.
    Chairman Levin. Well, maybe a few more than that.
    Back to Dr. Winkenwerder. Are you familiar with the 
Department's anthrax vaccine immunization program?
    Dr. Winkenwerder. Yes, sir.
    Chairman Levin. Do you support it?
    Dr. Winkenwerder. Yes, sir.
    Chairman Levin. There has been a delay in FDA approval of 
vaccine and the processing of that vaccine and the approval of 
the only current producer of the vaccine. It is expected later 
this year, but FDA in this way is incredibly slow at times in 
acting. I am wondering whether or not you would take some 
action to facilitate and speed up the FDA approval if you are 
confirmed.
    Dr. Winkenwerder. Yes, sir, I sure would. I am told at this 
point that action has been taken to try to expedite that review 
and approval. It would be my plan, if confirmed, to review that 
plan and to ask the question, is there any way that we can 
further expedite that approval? Certainly we cannot ask the FDA 
not to do what it needs to do, but that said, I would like it 
if things could be done exceptionally quickly.
    Chairman Levin. There have been too many instances where 
they have said that some of their actions are going to be on a 
fast track where they have not put them on a fast track. I 
agree with you, you cannot take shortcuts in those processes, 
but it is taking them much longer than they have committed to 
in a whole host of areas, and I cannot think of anything much 
more important than this anthrax immunization program. So, your 
voice will hopefully speed up that process.
    We have a provision in our bill that relates to claims 
processing procedures. In the DOD and outside of the DOD, there 
is an incredible amount of paperwork when it comes to health 
care claims and health payment claims. I think you are probably 
familiar with how much of our health care dollar goes just 
purely into administration. The private sector is beginning to 
try to do something about the high cost of claims processing.
    We have a provision in our bill which instructs the 
Department to examine their current processes and procedures 
relating to processing, to reduce the high cost of claims 
processing, to improve the timeliness of payment of claims and 
explanation of benefits, simplify information provided to 
beneficiaries relating to such claims through more automated 
processing is flexible and understandable. Will you pay some 
attention to that, assuming that that stays in the final bill?
    Dr. Winkenwerder. Yes, sir. If confirmed, I would 
absolutely want to look at that.
    Chairman Levin. I have been involved for a long time in 
trying to increase the amount of organ donors. A number of our 
colleagues have been involved in that effort, by the way. I 
have focused on the Defense Department and our hospitals inside 
the Defense Department because of the jurisdiction of this 
committee. We have a program to inform the beneficiaries that 
use the military health system of the value of the program, to 
encourage them to sign up for the program, and to inform loved 
ones of those who pass away of what is at stake if they are 
able to utilize the organs of that loved one to keep life 
sustained for somebody else. The Department is now looking into 
noting organ donors on military IDs.
    I am wondering whether or not you are a supporter of organ 
donor programs in general and whether you will give some 
support to that program inside the Department.
    Dr. Winkenwerder. The quick answer, sir, is absolutely. 
Organ donation and organ transplantation save lives. One of the 
keys to making those programs work is awareness of the public 
or, in this case, the military personnel and their families. We 
need to do all that we can to get their participation levels at 
the highest.
    Chairman Levin. Well, thank you for that. I hope that you 
would take a look at some of the statistics that have been 
produced inside the Department. They are a little encouraging 
but not nearly as much as they should be. So, take a look at 
what the hospitals have been able to do.
    Dr. Sambur, let me ask you just a couple quick questions. 
The Air Force has cut its science and technology investments by 
about 50 percent since the Cold War was over. How do you 
protect investments in research given the need for a lot of 
short-term items?
    Dr. Sambur. Well, that is obviously a very fine balancing 
act, but I think the issue here is basically to make sure 
people understand that the seeds of our future security rest 
with the science and technology programs we are doing now. If 
you don't have an emphasis on science and technology, if it is 
not brought up to the importance level it deserves, then you 
are really risking our security.
    If confirmed, I would like to work very closely with you 
and the committee to make sure that the proper attention is 
given to the science and technology programs.
    Chairman Levin. Thank you.
    In a recent report on Air Force research and development 
(R&D) programs, the National Academy of Sciences noted that the 
broad scope of responsibilities of the Assistant Secretary of 
the Air Force for Acquisition can prevent effective advocacy 
for Air Force scientific and technical (S&T) at the corporate 
policy and decision making level of the Air Force. Do you agree 
with that assessment and how are you going to balance your 
responsibilities for large acquisition programs with the need 
to protect smaller but very important, as you have just pointed 
out, R&D programs?
    Dr. Sambur. Well, as I said, Mr. Chairman, this is a very 
fine balancing act. You need to make sure that you are in 
constant communications with everybody to make this happen, and 
at the end of the day, you have to give emphasis to these 
science and technology programs, otherwise things will happen 
in the future that you will be sorry for.
    Chairman Levin. Are you familiar with that National Academy 
of Sciences report?
    Dr. Sambur. No, I am not.
    Chairman Levin. Well, perhaps then after you are confirmed, 
you would take a look at it.
    Dr. Sambur. I will certainly do that, if confirmed.
    Chairman Levin. Congress has worked with the Department to 
waive regulations and create new hiring and promotion 
authorities so that the Department can become a more attractive 
work place for highly trained technical workers. Congress and 
the National Academy of Sciences have been disappointed with 
the degree to which the Department has utilized those new 
authorities, and I am wondering how you would have the Air 
Force address the issue of attracting and retaining the finest 
technical work force possible.
    Dr. Sambur. I am not familiar, as I said before, with that 
report, but obviously the success of any endeavor in science 
and technology depends upon the quality of the people. So, at 
the end of the day, you have to find the solution to that, and 
if confirmed, I will certainly make that a priority.
    Chairman Levin. Take a look at some of those provisions 
that we have put in place to give you some authority especially 
for that purpose, to address the lack of adequate utilization 
of those authorities. Please put that on your list of things to 
do if you are confirmed.
    Dr. Sambur. I will certainly do that.
    Chairman Levin. Ms. Walker, last Friday the President 
issued a directive that purported to limit congressional access 
to classified information. The President has modified that 
since, perhaps not technically in written form, but nonetheless 
has sent very clear signals that there is no intent that he had 
to restrict access to classified information by this committee 
and other committees who have a need to have that information. 
We cannot operate without classified information. We cannot 
make the assessments that we have to make as to what weapons 
systems work, which ones do not work, where our shortfalls are 
in the inventory, and a hundred other things without classified 
information.
    Do we have your assurance that you will do everything 
within your authority to ensure that information needed in our 
activities as an authorizer and in our oversight role will be 
provided to this committee in a timely manner?
    Ms. Walker. Yes, Mr. Chairman, you do. I agree that 
Congress and particularly this committee must have access to 
information in order to perform essential functions. If 
confirmed, I would commit to work within the procedures 
established between Congress and the executive in order to make 
that classified information available to you.
    Chairman Levin. The last question I have is the following, 
Ms. Walker. Congress relies on accurate and timely information 
to carry out those oversight responsibilities. The information 
usually runs through official channels, but sometimes it comes 
from whistleblowers. In the past, we have seen on occasion 
retaliatory action taken against whistleblowers who have come 
to Members of Congress with classified information, revealing 
waste, fraud, or abuse in the Department of Defense activities.
    My question of you is this: do you believe that such 
whistleblowers, those who bring classified information to 
Members of Congress, should be protected from retaliation?
    Ms. Walker. Well, that is an interesting question, Mr. 
Chairman. I have not considered any specific cases, obviously, 
or what was involved in any of that. Obviously, 
whistleblowers--and I know that is a category that is somewhat 
charged--perform an essential function many times. I was aware, 
as Assistant Secretary of Energy, that there were times when 
whistleblowers brought information to us in the environment, 
safety and health area that was essential. They should be 
protected from any retaliation for that.
    When you are dealing with classified information, I am not 
prepared today to speak to specific cases and what might be 
involved in that. But I do agree with you. If you are 
suggesting that whistleblowers often perform a valuable service 
and should not be retaliated against, in general I would agree. 
If they are violating specific laws or policies against 
revealing classified information and under what circumstances 
they bring that information forward, I cannot speak to those 
cases. There may be times when those need to be reviewed on an 
individual basis. But in general, when it comes to 
whistleblowers, I do believe there is a service often performed 
there.
    Chairman Levin. Now, Members of Congress have clearance to 
receive classified information. So, what would be the problem 
with a whistleblower giving us classified information if we are 
authorized to receive classified information?
    Ms. Walker. Well, I understand--and again, my understanding 
is not perfect--that not every Member of Congress receives the 
same degree of classified information nor at the same level. 
So, what I was speaking to was really without assuming that the 
member to which that information was given was an appropriate 
receiver of that information. If you are suggesting that it is 
a member of this committee receiving information that is 
appropriately given, then I would agree with you. In that 
circumstance, it would seem retaliation would be obviously 
something that is not warranted.
    What I was suggesting is there may be circumstances where 
certain levels of classified information might be revealed to 
those who would not otherwise receive it based on the level of 
the classification, and in those instances, I could not 
prejudge what might be appropriate action taken by the 
Department. That is all I am saying. But in general I would 
agree with you about protecting whistleblowers.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. For Dr. Sambur. This committee has taken 
initiatives in the past few years and again this year in 
legislation--and we are very proactive on this--to encourage 
the military departments to move ahead with research and 
development of unmanned combat systems. Are you familiar with 
those initiatives by the committee?
    Dr. Sambur. I am not totally familiar with it. I am 
somewhat familiar with the unmanned.
    Senator Warner. Well, the military departments have made 
considerable progress, including the Department of the Air 
Force. It would be our hope that you likewise will see the 
wisdom in moving ahead on those fronts and, in that budget 
fight, get a little money for it.
    Dr. Sambur. Well, I certainly share your view.
    Senator Warner. Do you concur in the desirability of having 
these systems?
    Dr. Sambur. Absolutely. I think that has to be part of our 
future. Again, if we are not doing things that make us safe for 
the future, we are really not doing our job.
    Chairman Levin. If I can just interrupt. Senator Warner is 
being modest on this. When he was chairman of this committee, 
he was and still is the leader in the so-called UAVs, and this 
committee has followed that lead very strongly.
    Dr. Sambur. I am aware of his leadership.
    Chairman Levin. This is a big chunk of the future, and 
there is a real shortfall.
    Dr. Sambur. I agree with you totally.
    Chairman Levin. So, I just wanted to let you know that he 
speaks for the committee in this regard.
    Senator Warner. I thank my chairman, but you were a full 
partner in getting it done.
    Now, here is an area where you and I have had some 
differences.
    Chairman Levin. Whoops. I think time is up here. 
[Laughter.]
    Senator Warner. Dr. Beckner, the United States, I think 
wisely, has decided that the safety and reliability of our 
nuclear weapons stockpile shall be maintained without the need 
for testing and, to a certain extent, without the need for 
development of a new weapon, if that would be necessary.
    I personally believe that the Stockpile Stewardship program 
is a laudable goal, but this committee received extensive 
testimony last year in conjunction with the treaty, with which 
you are familiar, and came to the conclusion that that 
stockpile stewardship program, frankly, through no negligence, 
no oversight, no lack of effort, but just through the ability 
to break through in this new area of technology, was way behind 
schedule. As a consequence, the Senate ultimately decided not 
to ratify the treaty.
    Now, I am not going to probe you too strongly for your 
views, but I would hope that you could indicate to the 
committee that you are of an open mind on this issue. At the 
same time, you know better than I, there is an aging process in 
all of those weapons and we have an obligation to handlers and 
others, indeed the communities in our country where they are 
housed, shipped, and the aircraft which from time to time carry 
them. We have a tremendous responsibility to assure that these 
weapons can function and function within the parameters 
designed and that they are safe to handle.
    Now, a concomitant situation is that a nation who, for 
whatever reason might wish to challenge us in such a way that 
the President and others would have to consider--the Lord 
forbid--the use of them, we have to know that they would be 
effective. Now, those are awesome responsibilities that fall on 
your shoulders.
    I am concerned about this stewardship program and its 
ability to meet the goals, albeit laudatory, that were laid 
down in years past. So, give it some thought.
    Do you have an open mind? That is the most I am going to 
ask you to say at this moment.
    Dr. Beckner. No question about it. I have an open mind, 
Senator. I have followed this program for a long time, and 
realistically we are only in the early stages of it. We are 
talking about maintaining a stockpile for decades without 
further testing, if we can.
    Senator Warner. That is correct.
    Dr. Beckner. But we also, I think, all understand that if 
the day comes when we cannot certify the performance, the 
safety that stockpile, we will have to return to the President 
and to Congress and seek relief.
    Senator Warner. If we have to do that, better earlier than 
too late because this is a dangerous world out there. We know 
that so well. Things that we never could envision can happen 
now, and that is a doctrine we are going to have to follow.
    Give it some thought. This is one Senator who is going to 
carefully monitor that, and in due course when you come before 
this committee, you can expect questions which I will not press 
now, but at that time, as to your judgment as to the stockpile 
program and whether or not the stewardship is on target, on 
schedule, and can coincide in such a way as to alleviate any 
problems we have with aging.
    I thank you, sir. I thank this panel.
    Thank you, Mr. Chairman. It has been a very good hearing. 
So that you and I can go to other matters, I will put my 
questions in for the record.
    Chairman Levin. I will put the rest of my questions in for 
the record.
    I want to let you know, Dr. Beckner, just to put my oar in 
a bit on this last question, there is no statutory relief that 
you would need. If the administration decides to test, there is 
no prohibition on it other than President Bush's moratorium. If 
we ever ratified the treaty, which I hope we will some day, 
under the safeguards provisions, any country can withdraw and 
test if it is in the national interest to do. That was one of 
the reasons I was able to support that ratification, is that we 
could test under the treaty's provisions if it was in our 
national interest to do so.
    We do not have as big a difference as might have been 
indicated here because I think we both agree that if testing 
became essential to assure the safety and the security of our 
stockpile, that we would test. Hopefully it will not be 
necessary. Hopefully that program that we have now going will 
continue to give us all the assurance we need about safety and 
reliability. So, I do not think we have a major difference.
    By the way, I want to compliment Senator Warner again 
because he really played a very critical role. He made a huge 
effort to actually delay the confirmation vote on that treaty, 
as I remember, and he was, as always, a very constructive and 
bipartisan voice so that we could have delayed that vote to a 
time when we could have had perhaps more information and had a 
longer debate.
    Senator Warner. This committee held a series of hearings, 
and I will have to tell you, it is your peer group out there, 
the directors of those labs, not the politicians, that came 
forward.
    Dr. Beckner. I know them all.
    Senator Warner. They sat in those chairs and just said to 
the Members of Congress, we are working as hard as we can, 
night and day. No shortage of money is my recollection. No 
shortage of scientists, but we are still struggling to achieve 
the goals of that stewardship program. That was the reason that 
the Senate, in my judgment, made its decision.
    Thank you again, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner. We thank you 
all.
    We stand adjourned.
    [Whereupon, at 4:00 p.m., the committee was adjourned.]

    [Prepared questions submitted to Linton F. Brooks by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                   August 31, 2001.
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: I am pleased to submit my responses to a number 
of questions which you requested in connection with my nomination to be 
Deputy Administrator for Defense Nuclear Nonproliferation, National 
Nuclear Security Administration. In accordance with your letter of 
August 3, 2001, I have provided 75 copies and a computer disk.
    I appreciate the opportunity to provide you my views. I look 
forward to discussing these important issues with the committee and, if 
confirmed, to working with you and the committee to advance the United 
States' nonproliferation agenda. Thank you for your consideration.
            Very respectfully,
                                   Linton F. Brooks.
    Enclosure.
                                 ______
                                 
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. The fundamental responsibility of the Deputy Administrator 
for Defense Nuclear Nonproliferation is to enhance U.S. national 
security by promoting nuclear nonproliferation, reducing global danger 
from weapons of mass destruction, advancing international nuclear 
safeguards and eliminating inventories of surplus fissile materials 
usable for nuclear weapons.
    If confirmed, my most significant functions will be: to develop 
DOE/NNSA policies regarding arms control and nonproliferation; to 
direct research and development for treaty monitoring and for reducing 
the threats from nuclear, chemical, and biological weapons; to 
implement a cooperative international program to promote worldwide 
nuclear safety; to lead international materials and weapons protection 
programs, including those involving the Russian Federation; and to 
coordinate the development of policy regarding surplus fissile 
materials and manage the U.S. and Russian programs for disposition of 
excess weapons plutonium.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have a broad understanding of national security policy, 
especially arms control and nonproliferation policy, from my service in 
the State Department, Arms Control and Disarmament Agency, Office of 
the Secretary of Defense, and National Security Council Staff. My 
service as START negotiator and as supervisor of cooperative programs 
with Russia at the Center for Naval Analyses (CNA) has made me familiar 
with security issues and current political conditions in the Russian 
Federation. My NSC and OSD assignments and my recent service on 
advisory panels have made me familiar with the culture and capabilities 
of the national laboratories. Finally, from running a bureau at ACDA 
and a division at CNA, as well as from my Navy service, I am used to 
leading national security professionals and shaping a comprehensive, 
mission-oriented vision for a national security organization.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Administrator 
for Defense Nuclear Nonproliferation?
    Answer. Yes. I need to deepen my knowledge of the details of the 
programs for which I will be responsible if I am confirmed. I also need 
to build collegial working relationships with my counterparts in other 
agencies. I have already begun both actions in preparing for 
confirmation.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Administrator of the National Nuclear Security 
Administration would prescribe for you?
    Answer. In addition to the duties associated with my position, the 
Administrator will expect me to work with the other Deputy and 
Associate Administrators through his newly established Management 
Council to help with corporate functions and to help him make the NNSA 
a coherent, effective, efficient and respected organization.
    Question. If confirmed, how would you work with the following:
    Other Deputies in the NNSA.
    Answer. I expect to establish a close working relationship with my 
colleagues. Formally, this will be through the Administrator's 
recently-established Management Council. Informally, I will work with 
both Deputy and Associate Administrators in NNSA as a routine part of 
my day-to-day duties.
    Question. The Assistant Secretary for Environmental Management.
    Answer. Because responsibility for facilities will not, in general, 
be part of my portfolio, I anticipate that my interactions with the 
Assistant Secretary for Environmental Management will be relatively 
limited. The one exception concerns plutonium disposition, where I 
expect to work closely with the Assistant Secretary for Environmental 
Management in creating the necessary infrastructure at Savannah River.
    Question. Other Assistant Secretaries of the Department of Energy.
    Answer. Because of the semi-autonomous nature of the National 
Nuclear Security Administration, I anticipate much of my interaction 
with other Assistant Secretaries will be via NNSA. Where appropriate, I 
will work to establish collegial relations with other parts of the 
Department of Energy.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. The major substantive challenge I will confront if 
confirmed will be ensuring that the many nonproliferation programs for 
which I will be responsible are consistent and coherent, both within 
the Office of Defense Nuclear Nonproliferation and with other U.S. 
government programs. An important near term task will be helping devise 
a program for plutonium disposition that meets our nonproliferation 
goals and that can be supported both politically and fiscally.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work with my colleagues to ensure that 
I provide the necessary strategic direction to ensure a coherent 
nonproliferation program. In addition, I will devote considerable 
personal attention to the recently initiated review of plutonium 
disposition.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. The three most serious management problems I expect to face 
are: (1) maintaining an adequate and responsible budget for the various 
programs under my cognizance; (2) improving coordination with other 
agencies of the U.S. Government and with the national laboratories; and 
(3) retaining high-performing, experienced staff while attracting 
bright young professionals into government service.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I will support the NNSA Administrator in his attempts to 
establish a formal Planning, Programming, and Budgeting System within 
NNSA. Such a system will aid in managing the long-term funding needs 
that are inherent in many of the programs for which I will be 
responsible. In addition, I will devote personal attention to building 
on recent efforts to improve coordination and working relationships. I 
have not yet identified specific actions I will take on recruiting and 
retention.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. Should I be confirmed, my broad priorities will be working 
to ensure that the many nonproliferation programs for which I will be 
responsible are consistent and coherent, especially with respect to 
Russia, and working to improve coordination and working relations 
within my office, with other agencies of the U.S. Government, and with 
the national laboratories.
                          baker-cutler report
    Question. The Baker-Cutler Task Force of the Secretary of Energy's 
Advisory Board described the tasks of the Deputy Administrator for 
Nonproliferation as key to meeting the largest unmet national security 
threat currently facing the United States.
    What is your view of the findings and recommendations of the Baker-
Cutler report?
    Answer. I believe the Baker-Cutler report is generally correct, 
especially in its conclusion that the problem of securing Russian 
weapons and material is urgent and requires both adequate funding and a 
long-term vision. If confirmed I will work toward such a vision as a 
vehicle for securing adequate funding. At the same time, the Baker-
Cutler Task Force was not asked to assess overall administration fiscal 
priorities. Thus I believe the recommendations for massive budget 
increases should be taken as an indication of the importance of the 
problem, but not as a realistic guide to budget preparation.
                             nuclear cities
    Question. The Nuclear Cities Initiative (NCI) program has been 
criticized for being ineffective, lacking clear and measurable 
milestones, having weak management and changing program goals.
    Do you agree with this view? If so, how would you improve the 
program?
    Answer. My initial review of the program suggests that some 
criticisms are valid, while some are not. Rather than focus on the 
past, if confirmed I plan to work to restructure the program so that it 
will command support consistent with the importance of its goal of 
reducing the Russian weapons complex.
    Question. Do you have a view as to how you would focus the Nuclear 
Cities program and the goals that you would establish for the program 
to achieve?
    Answer. A management review is now in progress within the 
administration to determine how to restructure and refocus the Nuclear 
Cities program to respond to past criticisms while retaining the 
program's unique focus on transforming the former Soviet weapons 
complex. If confirmed, I intend to devote immediate, personal attention 
to that review. Pending its completion, I have not yet come to any firm 
conclusions about how the program should be transformed.
    Question. Do you support implementation of the NCI project at 
Avangard?
    Answer. Yes, provided the Department of Energy is able to satisfy 
current Congressional concerns. As I understand it, the current DOE/
NNSA plan is to focus its efforts on the city of Sarov and the 
conversion of the Avangard weapons plant. This appears to me to be a 
sound strategy and I plan to support it if confirmed.
    Question. What do you see as the distinguishing factors between the 
NCI program and the Initiatives for Proliferation Prevention and, if 
confirmed, how would you work to improve the coordination between the 
two programs?
    Answer. The Initiatives for Proliferation Prevention program 
focuses on individual scientists, engineers, and technicians, while the 
NCI program focuses on conversion of the nuclear weapons complex 
itself. In my view a sound program requires both components. If 
confirmed, I will give immediate attention to a management review now 
under way to devise an approach to ensuring effective coordination 
while preserving the good features of both programs.
    Question. According to a May 2001 GAO report, 70 percent of the 
funds expended for the Nuclear Cities Initiative were expended in the 
United States, with the bulk of the costs utilized by the U.S. national 
laboratories to implement the program. The GAO report further states 
that ``officials from the Ministry of Atomic Energy told [GAO] that 
they are dissatisfied with the amount of program funds that have been 
spent in Russia and that if the Department [of Energy] is serious about 
creating jobs for Russian weapons scientists, more funds must be spent 
in Russia.''
    If confirmed, how would you address the issues raised in the GAO 
report?
    Answer. I understand that management controls have already been put 
in place to ensure that at least 51 percent of program funds for fiscal 
year 2001 and 60 percent of program funds for fiscal year 2002 are 
spent in Russia. If confirmed I will monitor the progress of these 
improvements and take additional corrective action if the DOE is 
failing to meet its goal.
    Question. According to the May 2001 GAO report, the NCI and IPP 
programs are ``very similar programs in Russia's nuclear cities'' that 
have ``caused duplication of effort.'' Consequently, GAO recommends 
that the ``Department evaluate all of the NCI projects, particularly 
community development activities, and eliminate those that do not meet 
the program's basic objectives of creating jobs and assisting with the 
downsizing of Russia's nuclear weapons complex.'' The GAO report goes 
further by recommending, ``that the Department determine whether the 
NCI and IPP should be consolidated into one effort in order to achieve 
potential cost savings and other efficiencies.''
    If confirmed, would you support these GAO recommendations, 
including the re-evaluation of NCI projects to ensure that these 
projects met the program's basic objectives?
    If you do not support consolidation, how would you work to 
coordinate the programs, if confirmed?
    Answer. A management review is now in progress within the 
Administration to determine how to restructure and refocus the Nuclear 
Cities program to respond to past criticisms and to improve synergy 
with the Initiatives for Proliferation Prevention program, while 
retaining a focus on transforming the former Soviet weapons complex. If 
confirmed, I intend to devote immediate, personal attention to that 
review. Pending completion of the review, I have not yet come to any 
firm conclusions about how the program's management should be 
transformed.
                    research and engineering funding
    Question. The NNSA nonproliferation research and engineering budget 
request for fiscal year 2002 is $40 million lower than the fiscal year 
2001 appropriated amount and may be lower than what is required to meet 
current requirements and to sustain key unique research capabilities.
    If confirmed, how would you propose to address this issue?
    Answer. I strongly support nonproliferation research and 
engineering and believe additional funds are needed to address an 
increasing number of technical and global proliferation challenges. I 
share the committee's concern that reduced funding will result in some 
technologies becoming operational later than originally scheduled and 
some technology development being slowed. If confirmed I intend to give 
significant attention to this area. At the same time, I recognize that 
I will be required to balance these requirements against other 
important programs within a constrained budget environment.
                  former biological weapons scientists
    Question. The Department of Defense and the Department of State 
(DOS) each work with former biological weapons scientists through the 
Cooperative Threat Reduction (CTR) program and the International 
Security and Training Center (ISTC). The Department of Energy also 
conducts similar work that is coordinated with the Departments of 
Defense and State through the Interagency Working Group.
    In your view, what role, if any, should DOE have in the future with 
respect to scientists that were involved in the former Soviet Union 
biological weapons programs?
    If the NNSA were to participate in this work, would you recommend 
working through existing programs in the DOD and DOS to leverage 
existing programmatic management structures and to ensure the greatest 
level of cooperation?
    Answer. Curbing the spread of knowledge concerning biological 
weapons is an important--though very difficult--U.S. policy objective. 
As I understand it, the NNSA/DOE efforts in the Initiatives for 
Proliferation Prevention program already include efforts to redirect 
former Soviet biological weapons scientists to civilian pursuits. I 
understand current DOE efforts are carefully coordinated with State and 
DOD; if confirmed, I would insist that this be true for future efforts 
as well. I am not yet in a position to make specific recommendations 
with respect to an expanded DOE role or on specific aspects of program 
management.
                          expanded cooperation
    Question. In your view, is there an opportunity to expand the 
cooperative programs between NNSA and the States of the Former Soviet 
Union, other than Russia, such as Kazakhstan and Ukraine?
    Answer. Almost certainly the answer is yes, subject to budget 
constraints. There may be steps we can take to reduce the proliferation 
threat from diversion of highly-enriched uranium, for example, or to 
expand use of the Initiatives for Proliferation Prevention program to 
help scientists in Ukraine or Kazakhstan redirect their efforts to 
civilian pursuits. I have not, however, reached the stage of having 
specific proposals to offer.
    Question. If so, what threat reduction goals should such expanded 
cooperative programs have?
    Answer. The goals should be the same as existing programs: to 
ensure the security of nuclear material against possible diversion and 
to shift technical workers and scientists away from weapons work and 
toward civilian pursuits.
                    need for management improvements
    Question. If confirmed, what management initiatives would you 
propose?
    Answer. I have no specific initiatives to propose at this time. I 
believe my most important near-term management task will be to help 
ensure the smooth implementation of the October 1 NNSA reorganization.
                     fissile materials disposition
    Question. The fiscal year 2002 budget request and the 
administration's review of the nonproliferation programs have raised 
concerns about the fissile materials disposition program. The near term 
issue is whether the DOE will be able to transport plutonium and 
plutonium residues from Rocky Flats to Savannah River.
    Do you believe that there is an adequate plan in place for 
disposing of plutonium and plutonium residues after they reach the 
Savannah River site?
    Answer. I believe the current plans are technically adequate 
assuming they are properly funded. The current program has not, 
however, gained the necessary policy and political support within and 
outside the administration.
    Question. Will you commit to give this program your full and 
immediate attention if confirmed?
    Answer. I am committed to ensuring a thorough review is undertaken 
in order to ensure a program that will garner the necessary support. As 
noted above, I plan to devote immediate, personal attention to this 
area if confirmed.
                            export controls
    Question. According to the CIA's Unclassified Report to Congress on 
the Acquisition of Technology Relating to Weapons of Mass Destruction 
and Advanced Conventional Munition, ``increasingly rigorous and 
effective export controls and cooperation among supplier countries have 
led other foreign WMD programs to look elsewhere for many controlled 
dual-use goods.''
    If confirmed, would you examine the role that the Office of Defense 
Nuclear Nonproliferation's Export Control Program has in cooperating 
with supplier states on developing rigorous export controls and examine 
additional opportunities for greater cooperation with these supplier 
states?
    Answer. Yes.
                           russian cost share
    Question. According to a recent National Security Council staff 
review of U.S.-Russian nonproliferation programs, Russia may be capable 
of assuming more of the costs of implementing these programs.
    In your view, what DOE nonproliferation programs do you believe 
should require greater Russian cost share?
    Do you believe these programs would be more or less effective with 
greater Russian cost sharing?
    Answer. I believe we should constantly review all cooperative 
programs to ensure adequate Russian support, both to provide wise use 
of U.S. resources and to give Russia a greater stake in sustaining 
these programs. I have not reached any conclusions on specific 
programs. I believe it is important to recall that the United States 
engages in nonproliferation efforts with Russia because it is in the 
U.S. interest, not as a favor to the Russian Federation.
                            russia and iran
    Question. In December 2000, Secretary Cohen met with then-Russian 
Defense Minister Igor Sergeyev to discuss U.S. concern over Moscow's 
continued arms sales and proliferation activities with Iran. While this 
meeting and subsequent State Department meetings were considered 
upbeat, the United States did not receive concrete assurances from 
Russia that these proliferation activities would cease.
    What is your view of the current level of Russian arms sales and 
nuclear technology efforts with Iran?
    Answer. Based on the briefings I have received to date, I believe 
that there is an unacceptably high level of cooperation between Russia 
and Iran in nuclear issues and that international stability and U.S. 
security would be improved by reducing that cooperation.
    Question. As Deputy Administrator for Defense Nuclear 
Nonproliferation, what policy options would you propose to address 
proliferation activities of Russia with Iran?
    In your view, are there any DOE nonproliferation programs with 
Russia that could or should be used to leverage a desired policy 
outcome with respect to curbing or eliminating Russian secondary 
proliferation activities?
    Answer. I believe the U.S. approach to Iran must be a coordinated 
one that goes beyond the responsibilities of a single department. If 
confirmed, I will work with colleagues throughout government to devise 
such an approach. At the same time, our programs with Russia are not 
conducted as a ``favor'' to the Russia Federation, but because they are 
in U.S. interest. Thus using these programs to provide policy leverage 
should only be done after very careful consideration of the potential 
cost to our nonproliferation objectives.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Answer. Yes.
                                 ______
                                 

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Bingaman
    nonproliferation policies and programs pertaining to south asia
    1. Senator Bingaman. Ambassador Brooks, what capabilities does your 
organization have regarding management and implementation of 
nonproliferation policies and programs pertaining to South Asia?
    Ambassador Brooks. The Office of Defense Nuclear Nonproliferation 
(NA-20) has a regional security program that focuses on 
nonproliferation challenges in several parts of the world. The Middle 
East and South Asia are two of the most critical of these regions. By 
hindering proliferation and addressing security in unstable regions, 
the program also contributes to the U.S. effort to combat terrorism. 
NA-20 actively participates in interagency deliberations on policy 
toward such regions; NA-20 also plays a significant role in 
implementing U.S. policy. For example, we play a role in various 
international negotiations, informal dialogue with South Asian 
countries, and international collaboration on the application of 
technical solutions to regional security problems. In fulfilling this 
mission, NNSA draws on the considerable technical and analytical skills 
of the National Laboratories, particularly Sandia National 
Laboratories' Cooperative Monitoring Center.

            establishment of a separate regional directorate
    2. Senator Bingaman. Ambassador Brooks, should your organization 
establish a separate regional directorate in which nonproliferation 
issues regarding South Asia and other regions of concern are addressed 
and funded'?
    Ambassador Brooks. Not at this time. The current organization 
allows consideration of policy issues in the context of the overall 
U.S. approach to nonproliferation. If, in the future, active programs 
were established in South Asia, then appropriate organizational changes 
could be considered.

                           additional funding
    3. Senator Bingaman. Ambassador Brooks, has your organization 
sought additional funding for nonproliferation programs as part of the 
President's initiative requesting $40 billion for counterterrorism?
    Has the Department of Energy reviewed your proposal and made 
recommendations to the President for additional funding?
    Please provide specific information for budget requests for 
individual nonproliferation programs that were submitted to the 
President?
    Ambassador Brooks. The Office of Defense Nuclear Nonproliferation 
reviewed all its programs for possible acceleration. As you are aware, 
the Administration was forced to select among many potential 
augmentations and chose to focus on those with an immediate, rather 
than a long-term, focus. I believe it is inappropriate to provide 
details of internal Administration budget deliberations.

           establishment of a separate regional directorate 
    4. Senator Bingaman. Ambassador Brooks, in the wake of September 
11, President Putin has expressed greater willingness to cooperate with 
the United States than in recent years. Has that willingness manifested 
itself in any specific ways with respect to the cooperative threat 
reduction nonproliferation programs managed by DOE?
    Ambassador Brooks. Yes, I believe President Putin's willingness to 
increase cooperation with the United States following the September 11 
events has manifested itself in both a greater spirit of cooperation 
and also in a tangible number of new nonproliferation proposals. 
Specifically, Secretary of Energy Abraham and Minister of Atomic Energy 
Rumyantsev met in Vienna following the September 11 tragedy and have 
had several phone conversations since then that reflect this new spirit 
of cooperation. Minister Rumyantsev himself described their late 
September meeting as ``very constructive and productive.'' Rumyantsev 
followed that meeting with an invitation for the Secretary to meet with 
him in Moscow. In addition, this new spirit of cooperation was 
demonstrated by Minister Rumyantsev's offer to U.S. Ambassador Vershbow 
for him to visit first-hand the ten MinAtom closed cities to directly 
observe the tangible results of U.S-Russian nonproliferation 
cooperation.
    MinAtom has also focused its attention on developing a number of 
new technical proposals to further expand U.S.-Russian cooperation. In 
early October, Sandia National Laboratories received 45 new proposals 
from MinAtom institutes under the U.S.-Russian Warhead Safety and 
Security Program. If implemented these projects will significantly 
increase the safety and security of Russian nuclear warheads and 
fissile material. I also received a letter from the Vice President of 
the Kurchatov Institute containing a number of new proposals 
specifically designed to combat terrorism.

       potential directions for improved cooperation with russia
    5. Senator Bingaman. Ambassador Brooks, will you undertake to 
explore potential directions for improved cooperation with the Russian 
government?
    Ambassador Brooks. Yes. Certainly, this will be a topic that is 
discussed when Secretary Abraham and Minister Rumyantsez meet in 
Moscow.

                           country clearance
    6. Senator Bingaman. Ambassador Brooks, employees of the Department 
of Energy and the National Laboratories have often experienced 
significant difficulties in getting country clearance from the State 
Department needed to conduct business in conjunction with DOE's 
nonproliferation programs. I requested that DOE and the Department of 
State initiate a high-level working group to resolve country-clearance 
related problems. Has such a group been established? Has progress been 
made resolving this matter? 
    Ambassador Brooks. The high level working group has not been 
established because improvements in the process worked out by the 
acting Deputy Administrator for Defense Nuclear Nonproliferation and 
the relevant offices in the Department of State made such a group 
unnecessary. I recognize the importance of an effective country 
clearance process and will be alert to recommend appropriate action, 
including the establishment of a high level working group, should 
problems arise in the future.

               review of operations of doe moscow office
    7. Senator Bingaman. Ambassador Brooks, DOE recently completed a 
review of operations of the DOE office in Moscow. Would you please 
summarize the findings of that review?
    Ambassador Brooks. Former U.S. Ambassador to Russia, Jim Collins, 
and Gen. John Gordon, Under Secretary and Administrator for Nuclear 
Security, co-sponsored the review, which included interviews in both 
Moscow and Washington DC of 30 key United States Government personnel 
familiar with the DOE Moscow Office. The key findings of the review 
were that DOE Moscow Office has competent leadership, management and 
staff and that the Office performs valuable functions for DOE, the 
Department of State, and the U.S. Embassy in supporting 
nonproliferation and non-nuclear (oil/gas) programs in Russia. The 
primary challenge identified during the strategic review was to improve 
the working relationship between DOE and the Department of State in 
Washington.
    To address this challenge, the strategic review also included a 
near-term action plan with 18 specific actions to further increase the 
effectiveness of DOE Moscow Office and to improve cooperation/
coordination between DOE and State. To date, approximately 70 percent 
of these actions have already been implemented which has led to a 
significant improvement in coordination and cooperation between DOE and 
State.
                                 ______
                                 
               Question Submitted by Senator John Warner
         u.s.-russia plutonium disposition program in doe/nnsa
    8. Senator Warner. Ambassador Brooks, in your answer to the 
advanced policy questions, you indicated that you expect to work 
closely with the Assistant Secretary for Environmental Management in 
creating the necessary infrastructure at Savannah River. Specifically, 
what infrastructure do you have in mind and how will this support the 
implementation of the U.S.-Russia Plutonium Disposition Program?
    Ambassador Brooks. The Department's current plutonium disposition 
strategy involves the construction and operation of three key 
facilities at the Savannah River Site, i.e., Mixed Oxide (MOX) Fuel 
Fabrication Facility, Pit Disassembly and Conversion Facility and an 
Immobilization Facility. These facilities will depend on interim 
storage at the K Area Material Storage (KAMS), supply of vitrified high 
level radioactive waste for immobilization from the Defense Waste 
Processing Facility (DWPF), and possible Canyon use for plutonium 
polishing--all under the purview of the Assistant Secretary for 
Environmental Management. Additionally, the plutonium disposition 
program will rely on Savannah River Site to provide security, 
utilities, roads, analytical laboratory capabilities, etc. All of these 
elements are essential to implement the existing U.S.-Russia Plutonium 
Management and Disposition Agreement.
                                 ______
                                 
              Question Submitted by Senator Strom Thurmond
        bilateral plutonium management and disposition agreement
    9. Senator Thurmond. Ambassador Brooks, Russian Atomic Energy 
Agency First Deputy Valentin Ivanov recently indicated that without the 
Mixed Oxide Fuel component of the Bilateral Plutonium Management and 
Disposition Agreement the plan to eliminate plutonium in the United 
States and, more importantly, Russia would collapse. Do you agree with 
this assessment?
    Ambassador Brooks. Yes. The Russians have said repeatedly over the 
past 6 years they would not proceed with a bilateral plutonium 
disposition agreement with the United States unless it was based 
primarily on irradiating mixed oxide (MOX) fuel in nuclear reactors. 
The Russians feel immobilization does not degrade the isotopics of the 
weapon-grade plutonium making it relatively easy for a sophisticated 
Nuclear Weapons State to reuse this material in weapons. Further, the 
Russians have expressed an interest in recovering the energy value from 
the plutonium they worked so hard to produce. We have been informed 
that this position is not only held by Ministry of Atomic Energy but 
also by the Ministry of Defense, the Ministry of Foreign Affairs and is 
strongly concurred in by the Office of the Prime Minister.
                                 ______
                                 
    [The nomination reference of Linton F. Brooks follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 4, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Linton F. Brooks, of Virginia, to be Deputy Administrator for 
Defense Nuclear Nonproliferation, National Nuclear Security 
Administration. (New position)
                                 ______
                                 
    [The biographical sketch of Linton F. Brooks, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
           Biographical Sketch of Ambassador Linton F. Brooks
    Ambassador Linton F. Brooks is Vice President and Assistant to the 
President for Policy Analysis at the Center for Naval Analyses (CNA), a 
federally funded research and development center located in Alexandria, 
Virginia. As such, he is responsible for broad policy analyses of 
issues of national importance.
    Prior to joining CNA, Ambassador Brooks had an extensive career in 
government service. During the Bush administration, he served as 
Assistant Director for Strategic and Nuclear Affairs at the United 
States Arms Control and Disarmament Agency, and in the State Department 
as Head of the United States Delegation on Nuclear and Space Talks and 
Chief Strategic Arms Reductions (START) Negotiator. In this latter 
capacity, he was responsible for final preparation of the START I 
Treaty; which was signed by Presidents Bush and Gorbachev in Moscow on 
July 31, 1991. In December 1992, he performed a similar function during 
the final preparation of the January 3, 1993, START II Treaty. 
Thereafter, he served as a consultant on START II ratification to the 
Clinton administration.
    Before becoming Head of the United States Delegation to the Nuclear 
and Space Talks in April 1991, Ambassador Brooks served for 2 years as 
Deputy Head of the Delegation, holding the rank of ambassador. He 
joined the delegation after spending over 3 years as Director of Arms 
Control on the staff of the National Security Council, where he was 
responsible, among other things, for all aspects of United States 
strategic arms reductions policy and nuclear testing policy during the 
final third of the Reagan administration.
    Ambassador Brooks' National Security Council service culminated a 
30-year military career. Prior to his retirement as a Navy captain, 
Ambassador Brooks served at sea in destroyers, ballistic-missile 
submarines, and attack submarines; commanded the nuclear-powered attack 
submarine U.S.S. Whale (SSN 638); and served in a variety of Washington 
assignments relating to nuclear policy, military strategy, and arms 
control.
    Ambassador Brooks holds a BS in physics from Duke University, where 
he was elected to Phi Beta Kappa, and an MA in government and politics 
from the University of Maryland. He is a Distinguished Graduate of the 
U.S. Navy War College and has published a number of prize-winning 
articles on naval and nuclear strategy.
    The son of a career Army officer, Ambassador Brooks was born in 
Boston, Massachusetts, on August 15, 1938. He now resides in Vienna, 
Virginia, with his wife, the former Barbara Julius of Lancaster, 
Pennsylvania. The couple has two grown daughters, Julie and Kathryn.
                                 ______
                                 

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Linton F. 
Brooks in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Linton Forrestall Brooks.
    Nickname ``Lint'' used 1959 to date.

    2. Position to which nominated:
    Deputy Administrator for Defense Nuclear Nonproliferation, National 
Nuclear Security Administration.

    3. Date of nomination:
    September 4, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 15, 1938; Boston, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married since 24 October 1964 to Barbara Sue (Julius) Brooks.

    7. Names and ages of children:
    Julie K. Brooks--32.
    Katheryn L. Brooks--28.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Rils Hoyre Skol--Oslo Norway--1952-4.
    Columbia High School--Columbia, SC--1954-5 (Diploma 1955).
    Duke University--Durham, NC--1955-9 (BS, Physics, 1959).
    University of Maryland--College Park, MD--1970-72.
    (MA, Government and Politics, 1972).
    U.S. Navy War College--Newport, RI--1978-9 (Certificate, 1979).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    June 1989--Aug 1992--U.S.Department of State--Head of Delegation on 
Nuclear and Space Talks and Chief START Negotiator.
    Aug 1992--Jan 1993--U.S. Arms Control and Disarmament Agency--
Assistant Director for Strategic and Nuclear Affairs.
    Jan 1993--Sept 1996--U.S. Arms Control and Disarmament Agency--
Consultant on START II ratification (part time).
    Jan 1993--June 1994--The CNA Corporation (Center for Naval 
Analyses)--Distiguished Fellow (part time).
    Jun 1994--Date--The CNA Corporation (Center of Naval Analyses)--
Vice President.
    All employment has been in the Washington area.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Strategic Command Strategic Advisory Group Policy Panel (2000-
date).
    As part of my duties for the Center for Naval Analyses, I regularly 
advise the Navy staff in Washington.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Vice President, The CNA Corporation,  Alexandria, VA (will resign 
upon confirmation).
    I serve as a consultant to TRW for the sole purpose of serving as a 
member of the Sandia National Laboratories National Security Advisory 
Panel. I will resign upon confirmation.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life member--United States Naval Institute.
    Life member--Navy Submarine League.
    Chase Hill Civic Association.
    Executive Committee, United States Committee for the National 
Laboratories (NOTE: This is a recently formed educational and advocacy 
organization to support the Department of Energy's national 
laboratories; I will resign upon confirmation).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Angier B. Duke Scholar, Duke University, 1955-59.
    Phi Beta Kappa and various other college honor societies.
    Colbert Memorial Prize for Professional Essay, Navy War College, 
1979.
    Arleigh Burke Prize (professional writing) U.S. Naval Institute.
    State Department Distinguished Honor Award (2).
    U.S. Arms Control and Disarmament Agency Distinguished Honor Award.
    Defense Distinguished Service Medal, Legion of Merit (3), Defense 
Superior Service Medal, Navy Commendation Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
                                  book
    Co-editor with Arnold Kanter: U.S. Interventon Policy for the Post-
Cold War World: New Challenges and New Responses, (An American Assembly 
Book), New York, W.W. Norton & Co., 1994.
                              book chapter
    ``Conflict Termination Through Maritime Leverage'' in Stephen J. 
Cimbala and Keith Dunn (eds) Conflict Termination and Military 
Strategy; Westview Press, 1987.
    ``Diplomatic Solutions to the `Problem' of Non-Strategic Nuclear 
Weapons,'' (forthcoming).
                               monograph
    Peacetime Influence Through Forward Naval Presence, CNA Occasional 
Paper, Center for Naval Analyses, Alexandria, Virginia, October 1993.
                   articles in international security
    ``Naval Power and National Security; The Case for the Maritime 
Strategy'' (Fall 1986).
    ``Nuclear SLCMs Add to Deterrence and Security'' (Winter 1988/
1989).
                  articles in naval war college review
    ``Pricing Ourselves Out of the Market: The Attack Submarine 
Program'' (September-October 1979).
    ``An Examination of the Professional Concerns of Naval Officers as 
Reflected in Their Professional Journal'' (January-February 1980).
                      articles in submarine review
    ``Strategic Planning in the Submarine Force'' (January 1985).
    ``Forward Submarine Operations and Strategic Stability'' (April 
1993).
    ``Comments on Defensive Anti-Air Warfare for SSNs'' (July 1994).
    ``Waiting for START III'' (October 1998).
    articles in the proceedings of the united states naval institute
    ``Tactical Nuclear Weapons: Forgotten Facet of Naval Warfare'' 
(January 1980).
    ``It's Time to Start Speaking Up'' (January 1985).
    `` `New' As in Nuclear Land Attack Tomahawk'' (April 1985).
    ``Escalation and Naval Strategy'' (August 1985).
    ``The Nuclear Maritime Strategy'' (April 1987).
    ``Nuclear weapons at Sea'' (August 1988) (with Franklin C. Miller).
    ``Dropping the Baton'' (June 1989).
    ``Why Doesn't the Navy Make More Use of the Retired Community'' 
(January 1994).
    ``The New Nuclear Threat'' (May 1994).
 comment and discussion in the proceedings of the united states naval 
                               institute
    October 1983 (Operations in a nuclear environment).
    November 1984 (Anti-SSBN operations.
    December 1984 (Nuclear escalation).
    August 1985 (Tomahawk missiles).
    Article in Undersea Warfare (official Navy publication)
    ``Arms Control and Submarines,'' (Spring 2001).
   articles published in my official capacity and representing u.s. 
                          government positions
    ``The Strategic Arms Reduction Treaty: Reducing the Risk of War,'' 
NATO Review, Volume 39, Number 5 (October 1991).
    ``START: An End and a Beginning,'' Disarmament, Volume XV, Number 2 
(1992).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    No speeches given relating to nonproliferation.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Linton F. Brooks.
    Undated.

    [The nomination of Linton F. Brooks was reported to the 
Senate by Chairman Levin on October 15, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 16, 2001.]
                                ------                                

    [Prepared questions submitted to Marvin R. Sambur by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                September 18, 2001.
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Marvin R. Sambur.
    Enclosure.
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support full implementation of the Goldwater-Nichols 
Act.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe that the reforms outlined in the Goldwater-
Nichols Act are now part of the day-to-day business of the Department. 
We have seen how the Goldwater-Nichols Act significantly enhanced the 
Department's joint warfighting effectiveness. From a management 
standpoint, the Goldwater-Nichols Act was an important milestone in 
furthering the reform mindset within the Department, which led to 
today's pursuit of acquisition excellence.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe the most important aspect of the Goldwater-
Nichols Act is the improved joint warfighting capabilities. The 
Department's quick, unified response to the recent heinous terrorist 
attacks shows the strength of the joint force team. Today's acquisition 
excellence mindset, which had its genesis in the Goldwater-Nichols Act, 
will enable the acquisition community to efficiently deliver the combat 
capabilities the joint warfighters need to successfully accomplish the 
full range of military missions that will be required as we wage the 
war of the 21st century against terrorism.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. Over the past several years, I have seen the Air Force make 
dramatic improvements in the way it acquires and sustains weapon 
systems, and much of this progress was due to Congress passing historic 
reform legislation. As a nominee for this prestigious position, I am 
not aware of any current legislative efforts. If confirmed, I would 
look forward to working closely with Congress and the Department to 
identify the best way ahead.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force for Acquisition?
    Answer. It is my understanding that the Assistant Secretary of the 
Air Force for Acquisition serves as the Service Acquisition Executive 
for the Air Force. It is my understanding that, if confirmed, I would 
have the authority, responsibility, and accountability for acquisition 
functions and programs within the Air Force. Further, it is my 
understanding that the Air Force is in the process of implementing the 
Space Commission's recommendations regarding the acquisition of space 
systems. If confirmed, I would look forward to working closely with all 
involved to ensure an orderly transition.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As President and Chief Executive Officer of ITT Defense, my 
business career centered around the acquisition, management, and 
engineering of high technology programs. I believe my experience 
leading a cutting edge technology firm provides me with a strong 
foundation for leading the Air Force's acquisition team.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force for Acquisition?
    Answer. I believe that, if I have the honor of being confirmed for 
this prestigious position, I am professionally and technically prepared 
to assume the duties of the Assistant Secretary of the Air Force for 
Acquisition. If confirmed, I would look forward to being aided in my 
duties by the strong leadership team that currently exists within the 
Department, the Air Force, and the Acquisition staffs. If confirmed, I 
would look forward to seeking advice and counsel from those who have 
preceded me and other experts, and I would look forward to the 
challenge of the job.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed, I would look forward to having a close 
working relationship with the Secretary and the Under Secretary of the 
Air Force. It is my understanding that the Under Secretary of Defense 
for Acquisition, Logistics, and Technology has revised the Defense 
Acquisition Board process. If confirmed, I would look forward to being 
part of that important body. Furthermore, if confirmed, I would look 
forward to continuing the acquisition community's close working 
relationship with the operational side of the Air Force team, including 
the Chief of Staff of the Air Force and commanders of the major 
commands. By working together as a leadership team, we would understand 
each other's problems and concerns and ultimately provide airmen with 
needed combat capabilities that are effective, reliable, and 
affordable.
    Question. If confirmed, how would you work with the following 
officials:
    The Under Secretary of Defense for Acquisition, Technology and 
Logistics and the Deputy Under Secretary of Defense for Acquisition and 
Technology.
    Answer. If confirmed, I would look forward to having a close 
working relationship with the Under Secretary of Defense for 
Acquisition, Logistics, and Technology and his deputies. It is my 
understanding that, if confirmed, I would be charged with representing 
the Air Force on all matters relating to Air Force acquisition policy 
and programs.
    Question. The Secretary of the Air Force.
    Answer. If confirmed, I would look forward to having a close 
working relationship with the Secretary and the Under Secretary of the 
Air Force. It is my understanding that the Secretary of the Air Force 
has made the Assistant Secretary of the Air Force for Acquisition 
responsible for all research, development, and acquisition of weapon 
systems within the service. Additionally, it is my understanding that, 
if confirmed, I would serve as the Service Acquisition Executive and 
Senior Procurement Official.
    Question. The other Assistant Secretaries of the Air Force.
    Answer. It is my understanding that the other Assistant Secretaries 
have responsibilities for their respective areas: Manpower and Reserve 
Affairs, Installations and Environment, Financial Management and 
Comptroller, General Counsel, and Supervisor of Space Matters. If 
confirmed, I would look forward to working with them on crosscutting 
issues affecting our respective areas of responsibility, and would 
provide the assistance of the acquisition team on matters affecting 
their particular responsibilities as appropriate.
    Question. The assistant secretaries for acquisition in the other 
military services.
    Answer. If confirmed, I would look forward to developing a sound 
working relationship with the Acquisition Executives in the other 
Military Departments to ensure each of us can successfully carry out 
the statutory responsibilities assigned to us.
    Question. The Commander in Chief, U.S. Space Command and the 
commanders in chief of the space commands in the military services.
    Answer. It is my understanding that the Space Commission provided 
recommendations regarding acquisition of space systems. If confirmed, I 
would look forward to cooperating fully with the Commander In Chief 
U.S. SPACE Command and the commanders of the space commands in the 
military services to ensure continued efficient administration of 
matters related to acquisition of space systems for the joint 
warfighting team.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Air Force for Acquisition?
    Answer. I believe the most important challenge facing the Air Force 
is ensuring our Nation's aerospace force can successfully accomplish 
the myriad of missions airmen must perform within a fiscally 
constrained environment. If confirmed as the Assistant Secretary of the 
Air Force for Acquisition, I believe that my challenge would be to 
integrate research, development, and acquisition functions in the 
context of this complex equation. I believe my challenge would be to 
promote an environment that encourages the acquisition team to continue 
to refine Air Force processes and Air Force bureaucracies and find even 
more efficient and effective ways to deliver affordable combat 
capabilities to our warfighters in support of the joint team.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I believe that these are interrelated challenges and cannot 
be resolved individually. They must be addressed in the context of 
improving the way the acquisition community and the government conducts 
business. I know this Administration is committed to achieving 
significant reform. It is my understanding that the Secretary of 
Defense and the Service Secretaries have established the Senior 
Executive Council and Business Initiatives Council, both of which are 
reviewing the Department's processes and working hard to implement a 
wide range of ``best practices.'' If confirmed, I would look forward to 
reviewing current progress, and ensuring any plans that I implement 
would complement the initiatives already underway.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Air 
Force for Acquisition?
    Answer. At this time as the prospective Assistant Secretary of the 
Air Force for Acquisition, I am not aware of any systemic problems in 
the office. If confirmed and problems were to arise, I would look 
forward to working closely with Congress and the Department to identify 
the best way ahead.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. At this time as the prospective Assistant Secretary of the 
Air Force for Acquisition, I am not aware of any systemic problems in 
the office. However, if confirmed and problems were to arise, I would 
do my best to solve them as expeditiously as possible to maintain the 
integrity of the acquisition process.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Assistant Secretary of 
the Air Force for Acquisition?
    Answer. I believe that the set of priorities stated by the 
Secretary of Defense present an excellent framework for the service. If 
confirmed, I would work diligently to address these priorities as part 
of the Air Force's acquisition process. Broadly speaking, I believe 
this includes:

        <bullet> Supporting transformation--by leveraging new 
        technology, the acquisition team can enable the Air Force to 
        posture itself to face the challenges of an uncertain future.
        <bullet> Improving readiness--providing the warfighter with 
        sustainable combat capability is a crucial responsibility of 
        the acquisition team.
        <bullet> Increasing retention--the acquisition team can only be 
        successful if they have a skilled and motivated team supporting 
        them.
        <bullet> Supporting recapitalization--the acquisition team is 
        the linchpin for enabling the Air Force to provide the tools 
        our airmen need to fly, fight, and win.
                                testing
    Question. What is your view of the role that realistic testing 
should play in the acquisition process prior to any decision to enter 
into high rate production?
    Answer. Realistic testing ensures that we know the capabilities, 
effectiveness, and suitability of the weapon system, and have the 
opportunity to correct any deficiencies, prior to making the long-term 
commitment of funds and staking the Nation's and warfighter's future on 
it. If confirmed, I would seek to ensure that proper test and 
evaluation continues to be an integral part of the planning for all 
acquisition programs.
    Question. Is there potential for saving both time and money in the 
pre-production testing of major weapons systems by:
    (1) Making greater use of simulation?
    (2) Combining simulation with low-rate production and testing in 
the field?
    Answer. The synergy obtained through the use of validated models 
and simulations, ground testing, and in-flight testing enables the 
acquisition team to identify deficiencies and make changes to a system 
early in its development. It's easier from a technical standpoint, and 
more cost effective from a financial standpoint. Therefore, the more we 
can learn about a system early in its development, the better we can 
guide the acquisition process. If confirmed, I would seek to ensure 
plans of weapon acquisition programs continue to utilize the proper 
balance of using validated modeling and simulation, ground testing, and 
in-flight testing to reduce cycle times while providing the best combat 
capabilities to the warfighter.
                  streamlining the acquisition process
    Question. Both Secretary Rumsfeld and Under Secretary Aldridge have 
indicated that they believe that there is a compelling need to 
streamline the acquisition process to reduce the fielding times for new 
weapons systems and capabilities. Some would point to the testing 
process as an overall area that should be scrutinized in this effort to 
reduce these cycle times.
    However, the increasing complexity and interaction of complex 
systems would tend to argue for achieving higher confidence during 
testing that these systems will work as advertised.
    If you are confirmed as the Assistant Secretary of the Air Force 
for Acquisition, how would you propose to achieve the appropriate 
balance between the desire to reduce acquisition cycle times and the 
need to perform adequate operational testing?
    Answer. I believe that the Secretaries are correct. There is 
definitely a need to reduce the time it takes to get combat capability 
to the warfighter. If confirmed, I would look forward to working with 
the acquisition and test communities to determine how greater use of 
modeling and simulation can help the Air Force in evaluating weapon 
systems. If confirmed, I would work diligently to ensure the 
acquisition community continues to take advantage of all the tools 
available to provide the best combat capabilities to the warfighters in 
the shortest time possible.
    Question. Do you anticipate the need for changes in legislative or 
regulatory authority to achieve this balance?
    Answer. Over the past several years, I have seen the Air Force make 
dramatic improvements in the way it acquires and tests weapon systems, 
and much of this progress was due to Congress passing historic reform 
legislation. As the nominee for this prestigious position, I am not 
aware of any current legislative efforts. If confirmed, I would look 
forward to working closely with Congress and the Department to identify 
the best way ahead.
                       aerospace industrial base
    Question. The Department has decided to make a winner-take-all 
selection for moving to the engineering and manufacturing development 
phase of the Joint Strike Fighter program. This raises questions about 
the future viability of the aircraft industrial base.
    To what extent, if any, do you see a connection between maintaining 
a healthy aerospace production base and maintaining superior 
warfighting capabilities?
    Answer. I believe that our national security needs require a strong 
industrial base to provide technologically superior and affordable 
weapon systems to the nation's warfighters. A healthy aerospace 
industrial base is vital for maintaining superior combat capabilities 
for our airmen now and in the future. Key to this is a competitive 
defense marketplace with financially sound companies that are able to 
attract outstanding technical and managerial talent, as well as 
investment capital.
    Question. Do you believe a change or modification to the Joint 
Strike Fighter acquisition strategy will be necessary, after the 
upcoming source selection, to preserve the U.S. industrial bases' 
ability to design, develop, and produce tactical aircraft?
    Answer. I am aware that the Joint Strike Fighter program is 
currently in a source selection. However, as a nominee for this 
prestigious position, I have not received any briefings on this program 
and thus am not aware of the specifics of the program's plans. If 
confirmed, I would seek to ensure that directors of all weapon system 
acquisition programs continue to consider the effect their plans have 
on the defense industrial base while providing the best combat 
capabilities to the warfighter.
                    depots vs. contract maintenance
    Question. Many defense contractors have argued that it is a waste 
of money to have government depots duplicate their production capacity 
in order to maintain systems after initial production. They argue that 
a cradle-to-grave approach, where the production facility becomes the 
maintenance facility over the life of a system, would save time and 
money in weapons acquisition. Others argue that there are certain 
capabilities that must be maintained in government-owned facilities to 
ensure that the Services will have ready access to this capability 
during a national emergency, and that the cradle-to-grave approach 
would subject the Department to a potentially more costly sole-source 
maintenance contract.
    How do you believe that the government should decide on the 
appropriate balance between these competing views of the maintenance 
strategy?
    Answer. I am not immersed in the particulars of this subject. 
However, I believe the acquisition community must provide reliable, 
sustainable combat capabilities to the warfighter. If confirmed, I 
would look forward to working closely with the Air Force's logistics 
team to ensure weapon system acquisition program plans continue to 
consider the importance of sustainability to the warfighter.
    Question. Should the Department maintain a core weapon systems 
maintenance capability?
    Answer. I am not immersed in the particulars of this subject. 
However, I believe that all available options must be considered to 
ensure the highest state of readiness for our airmen. If confirmed, I 
would look forward to working closely with the Air Force's logistics 
team to ensure weapon system acquisition program plans continue to 
consider the importance of sustainability to the warfighter.
                         acquisition workforce
    Question. The Department has been reducing the size of the 
acquisition workforce for a number of years. Since these reductions 
have taken place primarily through attrition and reductions in hiring 
new employees, the average age of the workforce has been increasing. 
Some have estimated that a significant percentage of the workforce may 
retire in the next few years, creating a situation that could 
complicate our efforts to recapitalize or transform the Department's 
forces.
    What are your plans to achieve the correct size in the acquisition 
workforce and to support that force as potentially large numbers of 
older workers retire in the next few years?
    Answer. I had limited insight into the acquisition workforce issues 
as President and Chief Executive Officer of ITT Defense. The 
acquisition team is the linchpin for enabling the Air Force to provide 
the tools our airmen need to fly, fight, and win. If confirmed, I would 
look forward to working closely with the experts from the manpower and 
personnel areas to determine the best way ahead on this issue.
                              f-22 program
    Question. Over the past several years, the F-22 program has been 
operating under a legislated production cost cap. This cap was based on 
the Air Force's assessment of what would be required to complete the 
buy of 339 aircraft. At the time, it was understood that there were 
other offices, including the Congressional Budget Office (CBO) and the 
Cost Analysis Improvement Group or CAIG that had higher estimates of F-
22 production costs.
    Over the past couple of years, the Air Force has assured the 
committee that various cost estimates for F-22 production were 
beginning to converge, giving the committee reason to believe that F-22 
production would fit within the cost gap.
    This year, the Air Force estimate of production costs for the F-22 
is up by roughly $2 billion. In such a circumstance, we should have 
expected that this increase would have indicated some further 
convergence of the cost estimates. Press reports, however, indicate 
that the independent cost estimates have begun to diverge from the Air 
Force estimate.
    In your opinion, why are these cost estimates diverging?
    Answer. I am aware that a Defense Acquisition Board was conducted 
on the F-22, and the Board authorized the Air Force to proceed with Low 
Rate Initial Production. I believe that this was a good decision for 
the country in light of the combat capability the F-22 will bring to 
the joint warfighting team when it becomes operational. However, as a 
nominee for this prestigious position, I have not received any 
briefings on this program and thus am not aware of the specifics of the 
program's plans. If confirmed, I would look forward to working closely 
with the Secretary of the Air Force to ensure all weapon acquisition 
program plans, to include the F-22, continue to consider the importance 
of affordability. If confirmed, I would take advantage of all available 
management tools to maintain oversight of weapon system costs.
    Question. What steps should the Air Force take to ensure that it 
will be able to produce enough aircraft to meet the requirements for 
the program within the cost cap?
    Answer. As a nominee for this prestigious position, I have not 
received any briefings on this program and thus am not aware of the 
specifics of the program's plans. If confirmed, I would look forward to 
working closely with the Secretary of the Air Force to ensure all 
weapon acquisition program plans, to include the F-22, continue to 
consider the importance of affordability of the weapon systems. If 
confirmed, I would take advantage of all available management tools to 
maintain oversight of weapon system costs.
                    f-22 event-based decision making
    Question. The Air Force is required to manage the F-22 program on 
the basis of achieving certain milestones, rather than ``graduating'' 
when certain time on the calendar has elapsed. There have been delays 
in the testing program that will delay the start of operational testing 
by up to one year from the previously planned date. Nevertheless, there 
is still some risk that developmental testing may not be able to 
support operational testing even on this delayed schedule.
    Can you assure the committee that the Air Force will not proceed to 
operational testing before the program has completed sufficient 
developmental testing?
    Answer. If confirmed, I would be firmly committed to ensuring the 
safety and effectiveness of all weapon systems the acquisition team 
provides to the warfighters. Realistic development and operational 
testing ensures that we identify and fix safety and effectiveness 
concerns, prior to making the long-term commitment of funds and staking 
the Nation's and warfighters' future on it. If confirmed, I would look 
forward to working with the acquisition and test communities to ensure 
proper test and evaluation continues to be an integral part of the 
planning for all acquisition programs.
                         unmanned air vehicles
    Question. The Air Force has demonstrated a capability on the 
Predator Unmanned Air Vehicle (UAV) to fire Hellfire missiles at fixed 
targets, and will soon be expanding this capability to include mobile 
targets. The Unmanned Combat Air Vehicle (UCAV) is scheduled for first 
flight within a year. The Global Hawk High Altitude Endurance UAV is 
entering production and will be collocated with the U-2 fleet at Beale 
Air Force Base in California.
    What is your vision for the future of UAVs and UCAVs in the Air 
Force?
    Answer. It is my understanding that the warfighters' determine 
required combat capabilities. It is my understanding that the 
acquisition team is then charged to deliver that combat capability when 
needed at an affordable cost. If confirmed, I would continue the 
acquisition community's close working relationship with the operational 
side of the Air Force team, including the Chief of Staff of the Air 
Force and commanders of the major commands. By working together as a 
leadership team, we would understand each other's problems and concerns 
and ultimately provide our airmen with needed combat capabilities that 
are effective, reliable, and affordable.
    Question. In the Fiscal Year 2001 Floyd D. Spence National Defense 
Authorization Act, Congress set a goal that within 10 years one-third 
of U.S. military operational deep strike capability would be unmanned. 
In addition, Congress invested an additional $50 million above the 
President's budget request in the Air Force Unmanned Combat Air 
Vehicle.
    Do you support the 10-year goal of one-third of U.S. military 
operational deep strike aircraft being unmanned?
    Answer. I am aware of the public law that outlined this important 
goal, and am aware that there are programs within the Department geared 
to attaining this objective. As a nominee for this prestigious 
position, I am not aware of the specifics of the program plans. 
However, if confirmed, I would look forward to working with Department 
and Air Force officials to ensure the Air Force continues to support 
the Department's demonstration program that is integral to achieving 
that goal.
    Question. In your view, is the current level of investment, the 
Fiscal Year 2002 President's budget request of $60 million, sufficient 
to realize this goal?
    Answer. As a nominee for this prestigious position, I am not aware 
of the specifics of this issue. If confirmed, I would look forward to 
working with the acquisition team to ensure they continue to identify 
the level of investment needed to efficiently provide needed combat 
capabilities to the warfighters. I would look forward to working 
closely with the Department and Congress to determine the best way to 
provide the necessary resources.
                      acquisition process problems
    Question. The committee has been concerned about schedule and cost 
problems in a number of Defense Department acquisition programs. 
Perhaps more troubling is that the Department seems to have been 
surprised by some of these problems. Various Department officials have 
testified that the implementation of earned value management systems 
and integrated product teams should have provided greater visibility 
into cost and schedule, but there would appear to have been some 
shortcomings in that regard.
    Do you believe that structural changes or policy changes are 
appropriate to help avoid similar problems on current or future 
programs? If so, what changes would you recommend?
    Answer. As a nominee for this prestigious position, I am not aware 
of any systemic problems in the office. If confirmed, I would work 
diligently to ensure directors of all Air Force weapon system 
acquisition programs continue to take advantage of the tools available 
to manage cost, schedule, and technical performance and to provide the 
best combat capability to the warfighter when needed at an affordable 
cost. If confirmed and problems were to arise, I would do my best to 
solve them as expeditiously as possible to maintain the integrity of 
the acquisition process.
                  oversight of space-related programs
    Question. Secretary Rumsfeld has announced that he intends to vest 
oversight of space programs in the Under Secretary of the Air Force.
    Do you believe that programs such as GPS receivers and satellite 
communications ground terminals appropriately fit within the ``space'' 
portfolio of the Under Secretary?
    Answer. It is my understanding that the Space Commission provided 
recommendations regarding acquisition of space systems. However, as a 
nominee for this prestigious position, I am not aware of the specifics 
of the report of the implementation plan. If confirmed, I would look 
forward to cooperating fully with the Commander in Chief, U.S. Space 
Command, and the commanders of the space commands in the military 
services to ensure continued efficient administration of all matters 
related to acquisition of space systems for the joint warfighting team.
    Question. Do you know exactly what space-related responsibilities 
you will handle, if you are confirmed, and what responsibilities will 
be handled by the Under Secretary?
    Answer. It is my understanding that the Space Commission provided 
recommendations regarding acquisition of space systems. However, as a 
nominee for this prestigious position, I am not aware of the specifics 
of the report or the implementation plan. If confirmed, I would look 
forward to having a close working relationship with the Under Secretary 
of the Air Force, and other Department leaders, in the space realm. If 
confirmed, I would look forward to cooperating fully with them to 
ensure continued efficient administration of all matters related to 
acquisition of space systems for the joint warfighting team.
    Question. If the Air Force becomes the executive agent for the DOD 
for Space, how will this impact your duties?
    Answer. It is my understanding that the Space Commission provided 
recommendations regarding acquisition of space systems. However, as a 
nominee for this prestigious position, I am not aware of the specifics 
of the report or the implementation plan. If confirmed, I would look 
forward to having a close working relationship with the Under Secretary 
of the Air Force, and other Department leaders in the space realm. If 
confirmed, I would look forward to cooperating fully with them to 
ensure continued efficient administration of all matters related to 
acquisition of space systems for the joint warfighting team.
    Question. If the Air Force is the executive agent for DOD for 
Space, how will this affect your relationship with the service 
acquisition assistant secretaries and Under Secretary of Defense 
Aldridge?
    Answer. It is my understanding that the Space Commission provided 
recommendations regarding acquisition of space systems. However, as a 
nominee for this prestigious position, I am not aware of the specifics 
of the report or the implementation plan. If confirmed, I would look 
forward to developing a sound working relationship with Under Secretary 
of Defense Aldridge and the Acquisition Executives in the other 
Military Departments to ensure each of us can successfully carry out 
the statutory responsibilities assigned to us. If confirmed, I would 
look forward to cooperating fully with them to ensure continued 
efficient administration of all matters related to acquisition of space 
systems for the joint warfighting team.
                   science and technology investment
    Question. In his June 28, 2001 testimony before this committee, 
Secretary Rumsfeld stated that he has set a goal of 3 percent of the 
total defense budget for the Defense Science and Technology Program.
    If confirmed, would you support a similar goal for the Air Force 
Science and Technology portfolio, as a percentage of the entire Air 
Force budget?
    Answer. I believe that a strong science and technology program is 
crucial to providing future generations of airmen the combat 
capabilities they will need in the future. Science and technology is 
certainly an area I am most interested in. If confirmed, I would work 
diligently to ensure that the acquisition community enables the Air 
Force to continue to maintain it's technological dominance over any 
potential adversary. If confirmed, I would look forward to working with 
the leadership of the Air Force, the Department, and Congress to ensure 
the Air Force continues to provide an appropriate level of resources in 
the Science and Technology arena.
    Question. In your view, does the current Air Force Science and 
Technology portfolio adequately support the warfighter of today and the 
future?
    Answer. As a nominee for this prestigious position, I am not aware 
of the specific technologies within the Air Force's Science and 
Technology portfolio. I am certainly most interested in this arena. If 
confirmed, I would work diligently to ensure that the acquisition 
community enables the Air Force to continue to maintain it's 
technological dominance over any potential adversary. If confirmed, I 
would look forward to working with the leadership of the Air Force, the 
Department, and Congress to ensure the Air Force continues to provide 
an appropriate level of resources in the Science and Technology arena.
    Question. If confirmed, how do you intend to facilitate 
communication between the science and technology community and the 
warfighter?
    Answer. If confirmed, I would look forward to continuing the close 
working relationship the acquisition community has with the operational 
side of the Air Force team, including the Chief of Staff of the Air 
Force and commanders of the major commands. By working together as a 
leadership team, we would understand each other's problems and concerns 
and ultimately provide the airmen with needed combat capabilities that 
are effective, reliable, and affordable. If confirmed, I would work 
diligently to use this understanding to ensure the Air Force Science 
and Technology portfolio continues to invest in research that will 
provide the needed capabilities in the future.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Acquisition?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Strom Thurmond
                        air force modernization
    1. Senator Thurmond. Dr. Sambur, The Air Force has developed a 
time-phased approach that seeks to modernize without sacrificing 
readiness. Among its priorities are procuring the C-17, increasing C-5 
reliability, upgrading conventional bombers and precision-guided 
munitions (PGMs), and modernizing fighter and tanker fleets.
    Considering the current threat environment, do you agree with this 
priority for modernization?
    Dr. Sambur. Certainly, the current threat environment is placing 
enormous requirements on all our assets. I am confident that current 
Air Force planning, programming, and procurement efforts are working 
hard to correctly prioritize these requirements to support the National 
Military Strategy. If confirmed, I look forward to participating in 
this process.
                                 ______
                                 
    [The nomination reference of Dr. Marvin R. Sambur follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 4, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Dr. Marvin R. Sambur, of Indiana, to be an Assistant Secretary of 
the Air Force, vice Lawrence J. Delaney.
                                 ______
                                 
    [The biographical sketch of Dr. Marvin R. Sambur, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Marvin R. Sambur
    Marvin R. Sambur has been with ITT for nearly 25 years, where he 
served in several capacities. These positions included President and 
CEO of ITT Defense, President and General Manager of ITT Aerospace and 
Communications, and President and General Manager of ITT Electron 
Technology.
    As President of ITT Defense, Dr. Sambur was responsible for the 
total management of ITT's $1.5 billion Defense sector. The defense 
sector included six divisions with 10,000 employees that supplied 
advanced wireless communications systems, sophisticated satellite 
payloads, air traffic control systems, night vision goggles, electronic 
warfare systems, and advanced services to the U.S. and foreign 
governments.
    As President of ITT Aerospace and Communications, Dr. Sambur was 
instrumental in making the division into the world leader in the 
manufacture and supply of tactical radios used by the U.S. military and 
allied forces, as well as the world leader in the design and production 
of space borne navigation and metrological satellite payloads.
    Prior to joining ITT, Dr. Sambur was with Bell Laboratories, where 
he was a member of the technical staff of the Digital Signal Processing 
Research Department. He holds a Bachelor of Science degree in 
Electrical Engineering from City College of New York and a Master of 
Science degree and a Ph.D. in Electrical Engineering from the 
Massachusetts Institute of Technology.
    Dr. Sambur has published numerous papers in the areas of voice 
processing and digital signal processing and has been granted several 
patents. In 1984, he was given the prestigious IEEE Centennial Award 
for engineering management. He is a senior member of IEEE, the 
Acoustical Society of America, Eta Kappa Nu, Tau Beta Pi, and Sigma Xi.
                                 ______
                                 

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Marvin R. 
Sambur in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Marvin Robert Sambur.

    2. Position to which nominated:
    Assistant Secretary of the Air Force for Acquisition.

    3. Date of nomination:
    September 4, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 31, 1946; Brooklyn, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Arlene Carol Bossowick.

    7. Names and ages of children:
    Beth Yvonne Sambur (24 years); Ian Matthew Sambur (20 years).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Brooklyn Technical HS (9/59-6/63); CCNY (9/63-6/68) received BEE; 
MIT (9/68-6/72) received MSEE and PhD.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President ITT Aerospace Technology Division (6/91-10/98 and 8/2000-
3/2001); President ITT Defense (10/98-8/2001); presently Consultant for 
ITT (4/2001-present).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member IEEE.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Paul Helmke ($100) running for U.S. Senate in Indiana.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    IEEE centennial award for outstanding Engineering Management; 
elected Senior member of IEEE.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Dr. Marvin R. Sambur.
    This 1st day of August, 2001.

    [The nomination of Dr. Marvin R. Sambur was reported to the 
Senate by Chairman Levin on November 8, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 8, 2001.]
                                ------                                

    [Prepared questions submitted to Dr. William Winkenwerder, 
Jr. by Chairman Levin prior to the hearing with answers 
supplied follow:]

                                                   October 5, 2001.
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Yours truly,
                                   Dr. William Winkenwerder, Jr.
cc: Hon. John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. Significant progress has been made, and I believe the 
Department has embraced the spirit of the act.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Reaffirmation and clarification of civilian control, and 
strengthening the role of the Commanders in Chief of the Unified 
Commands.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am not familiar with any proposed amendments to 
Goldwater-Nichols. I have not formed an opinion on the potential 
appropriateness of any changes to the Goldwater-Nichols Act.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Health Affairs?
    Answer. If confirmed, I would serve as the principal staff 
assistant to the Under Secretary of Defense for Personnel & Readiness 
(USD(P&R)) and to the Secretary of Defense for the full range of health 
policies and programs. My primary duty would be to execute the 
Department's medical mission--to provide, and maintain readiness to 
provide, medical services to members of the Armed Forces, ensuring 
their fitness for duty and deployment. I would also be responsible for 
the provision of health care to the family members of the Armed Forces, 
retirees and their eligible family members, and others eligible for DOD 
health benefits.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, I would bring a number of skills to this 
important position. I am a board-certified physician with several years 
of experience in clinical practice. My clinical experience has been 
complemented with fourteen years of health care management experience 
that includes both private sector and public service. These positions 
include experience in health care delivery, health plan management, and 
with the health insurance industry. I will call on my experiences in 
each of these settings if I am confirmed as Assistant Secretary of 
Defense for Health Affairs.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of Defense for Health Affairs?
    Answer. The Secretary of Defense and the Under Secretary for 
Personnel and Readiness have outlined their expectations for this 
position, and expressed their confidence in my ability to perform this 
job within the authorities already provided. If confirmed, the most 
important actions that I would undertake, early in my tenure, would be 
to draw on the existing pool of talented military and civilian health 
care professionals in the Department of Defense and the external 
military support organizations and beneficiary groups for ideas and to 
clearly communicate to these organizations and individuals the 
expectations that the Secretary and Under Secretary have for them. I 
would also seek to strengthen relationships with government and non-
government agencies outside of the Department of Defense, to include 
the Department of Health and Human Services, the Centers for Medicare 
and Medicaid Services, the Centers for Disease Control, the Food and 
Drug Administration, the Agency for Health Care Policy and Research, 
the Department of Veterans Affairs, and the health care industry.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. Clearly, the primary mission of ensuring the health and 
fitness of our Active-Duty Forces remains preeminent. If I am 
confirmed, I anticipate that the coming months will be very focused on 
force health protection activities, our medical readiness 
responsibilities, and medical support to potential deployments. The 
Secretary of Defense expects a world-class health system for the men 
and women who serve or have served our country that is defined by 
superior performance, accountability and financial integrity.
    Question. In carrying out your duties, how will you work with the 
following:
    The Under Secretary for Personnel and Readiness.
    The TRICARE Management Agency.
    The Surgeons General of each of the Services.
    The TRICARE Lead Agents.
    The TRICARE Support Contractors.
    The Designated Providers' Chief Executive Officers (i.e., Uniformed 
Services Treatment Facility CEOs).
    Beneficiary Groups.
    Answer. An overarching theme that will define my relationships with 
each of these important individuals or groups is close collaboration. 
Continued success in defense health care will be largely defined by our 
ability to work together as a team--the civilian leadership in DOD, the 
Military Departments, both line and medical, TRICARE regional offices, 
private sector contractors, and the beneficiary or constituent 
associations which represent the people the Department of Defense 
serves. I do believe that success is also achieved through the 
establishment of performance expectations, supported by clear lines of 
authority and accountability for these expectations.
    The lines of authority and accountability between the Under 
Secretary of Defense for Personnel and Readiness, the Assistant 
Secretary of Defense for Health Affairs, and the TRICARE Management 
Activity are clear and direct. If confirmed, I look forward to working 
with Dr. Chu and with the health care professionals within Health 
Affairs and TMA. The TMA is a subordinate field activity under the 
Assistant Secretary of Defense for Health Affairs, and responsibility 
for its performance rests with this office. The buck stops here.
    I would also look forward to working closely and collaboratively 
with the Service Surgeons General. I would include them in our 
strategic planning process, and I am looking forward to soliciting 
their ideas on sustaining and improving our military medical readiness 
posture. The Surgeons General and their line leadership direct the 
activities of our military medical treatment facilities, where more 
than half of all our medical care is delivered. Our close working 
relationship will be vital to communicating and implementing a 
coordinated strategy for medical readiness activities as well as health 
care delivery to our other beneficiaries.
    Coming from the private sector, I am also confident in the ability 
of private health care contractors to complement the military health 
care delivery system with high quality services. The relationship 
between government and private contractors should be based on a true 
partnership. Honest, open and frequent communications is the key to a 
healthy working relationship with all of our contractors, TRICARE or 
Designated Providers. Together with a clear definition of performance 
expectations and measures, I believe that these contractual 
relationships can and should grow into long-term relationships mutually 
benefiting both the government and contractor.
    Finally, if confirmed, I am dedicated to continuing the close 
working relationship that has developed with the beneficiary 
associations over the past year. I plan to communicate frequently with 
these organizations, and to solicit their ideas on how we can improve 
our performance. If I am confirmed, I plan to meet with the leaders of 
The Military Coalition and National Military Veterans Alliance early in 
my tenure and at regular, frequent intervals throughout my tenure.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for Health Affairs?
    Answer. I believe that medical readiness and force health 
protection requirements represent the primary challenges for the 
Assistant Secretary of Defense. Parallel challenges include the need to 
improve the predictability of health care costs; manage the TRICARE 
benefit and the long-term costs of the program; ensure high quality 
care; and institute continuous improvement of business practices 
through improved contracting and performance outcomes measurement.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would quickly establish 6-12 month work 
plans for making achievable and measurable progress on each of the high 
priority issues. I believe that the establishment of clearly defined 
goals combined with the empowerment of individuals to achieve those 
goals is essential to making rapid improvements in the health care 
system.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of Defense 
for Health Affairs?
    Answer. In the past several weeks, I have been fortunate to observe 
activities within Health Affairs and to have spent some time with the 
acting Assistant Secretary of Defense for Health Affairs, Dr. Jarrett 
Clinton. Despite staff shortages that occurred during the transition 
period, he and his staff superbly implemented the new TRICARE benefits, 
and provided expert advice to the Under Secretary and Secretary of 
Defense on a range of force health protection and medical readiness 
matters--both before and after September 11. In that regard, I want to 
commend Dr. Clinton and his staff for their performance over the past 
year. If confirmed, I hope to build upon these successes, increase 
outreach to other government agencies and institute smart business 
practices to manage the TRICARE benefits that are now in place.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. The pace of activity in the medical readiness arena is 
clearly accelerated since September 11, 2001. Actions and timelines in 
many areas will likely be defined by days and weeks, not months and 
years. If confirmed, I will determine or review each required action 
and set the deadline for implementation. In the TRICARE arena, I would 
immediately undertake actions to establish time lines to monitor 
performance, establish performance improvement goals where appropriate 
and strengthen management controls. The contracting cycle for 
activities this large require fairly significant lead times for 
issuance of requests for proposals (RFPs), reviews of bidder 
submissions, secondary reviews, award of contracts, and transitions 
from outgoing to incoming contractors.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Assistant Secretary of 
Defense for Health Affairs?
    Answer. If confirmed, the challenges I identified above would 
become the priorities for action. First, ensuring our Active-Duty 
Forces are healthy and prepared to deploy at any time. Second, ensuring 
our military medical forces are prepared to provide quality services to 
our forces anywhere in the world. Third, introducing business practices 
that will ensure we deliver a world-class health care system that 
serves the beneficiary by improving their health while controlling 
costs for both the beneficiary and the taxpayer.
                                tricare
    Question. TRICARE has been a managed care program in the making in 
the Department of Defense for over a decade. The Department is 
currently developing options for the next generation of contracts for 
care provided by civilian providers.
    If confirmed, what will be your commitment to the TRICARE program?
    Answer. I wholeheartedly support TRICARE. In the past few years, 
TRICARE has improved significantly--particularly in the areas of claims 
processing and customer satisfaction. If confirmed, I will seek further 
improvements in the program, and I will seek to increase 
accountability, strengthen our business practices and our partnership 
relationships with the private sector.
    Question. Do you have any views on how a new generation of 
contracts could be structured?
    Answer. It is my understanding that the TRICARE Management Activity 
is actively engaged in shaping the next generation of TRICARE 
contracts. Most of this activity is procurement sensitive, and I have 
not yet participated in detailed discussions. If confirmed, I plan to 
quickly engage in the specific details and our objectives. In general, 
however, I believe that contracts should be developed in a manner that 
invites the greatest level of competition, and that emphasizes outcomes 
rather than prescribing the processes for achieving those outcomes.
    Question. Based on your experience in the private sector, what 
contracting mechanisms or modifications should be considered?
    Answer. In the private sector, we emphasize quality, service and 
cost-effectiveness measures in our contracts, and incentives to achieve 
high levels of performance.
    Question. If confirmed, what will be your short-term and long-term 
goals for TRICARE?
    Answer. If confirmed, my short-term goals would be to implement and 
monitor the new benefits introduced in fiscal year 2002. In the longer 
term, I plan to pursue the Secretary's imperative for a world-class 
health system that continues to improve beneficiary satisfaction, 
protect our military families from excessive out-of-pocket costs and 
procure new TRICARE contracts in a manner that best supports military 
medical readiness and serves the interests of our beneficiaries and the 
taxpayers.
    Question. If confirmed, how will you capture the essence of the 
partnering arrangement between the Government and the TRICARE Support 
Contractors that is necessary for the successful delivery of health 
care within the TRICARE Program?
    Answer. If confirmed, I would further the partnering relationships 
with contractors. The relationship between government and private 
contractors should be based on a true partnership. Honest, open and 
frequent communications, and a shared understanding of mutual 
accountability are the key elements to a healthy working relationship 
with all of our contractors.
    Question. As members and staff of the committee visit installations 
and military units around the world, it has become apparent that 
TRICARE is not understood by many service members and their families. 
Many senior leaders do not understand TRICARE well enough to assist 
their subordinates. Some concerns about the effectiveness of the 
TRICARE program are the result of misunderstandings about the program.
    If confirmed, what will you do to help beneficiaries understand 
their TRICARE benefits?
    Answer. If confirmed, I will rely on both TMA and TRICARE 
contractors to ensure beneficiaries reach ever-higher levels of 
understanding of their TRICARE benefits. I would seek to use every 
available means of communication--the internet, direct mail, call 
centers, face-to-face briefings, media, and coordination with 
beneficiary association organizations to ensure the widest possible 
outreach efforts. My experience in the private sector has taught me 
that beneficiaries use all of these sources for their information, and 
that repetitive communications are required to fully reach the entire 
population.
    Question. In your opinion, what is the role of the operational 
chain of command in ensuring that service members thoroughly understand 
the options within TRICARE available to their families?
    Answer. I support the role that the chain of command assumes for 
their subordinates' welfare, to include education on the range of 
benefits available to their soldiers, sailors, airmen and marines. 
Fortunately, senior personnel are also TRICARE beneficiaries. In my 
opinion, the most important piece of information is to know where to 
direct people in order to get informed answers.
    Question. If confirmed, how will you ensure the operational chain 
of command fulfills that role?
    Answer. If confirmed, I plan to meet early and often with senior 
leaders--both officer and enlisted--and get their views on how best to 
educate our active duty personnel. I am certain that this will be a 
two-way street--providing Health Affairs and TMA with good ideas, and 
providing the line leadership with information to take back to their 
people.
    Question. There continues to be concern expressed by TRICARE 
beneficiaries about the adequacy and availability of health care 
providers in some areas of the country. While managed care support 
contracts have access standards and timeliness requirements to ensure 
beneficiaries have access to appropriate providers within a reasonable 
period of time, this does not always happen.
    What ideas do you have about improving the number and adequacy of 
providers under the TRICARE program?
    Answer. I believe that having access to quality health care 
providers is an essential element of a world-class health care system. 
In addressing this problem, if confirmed, I would want to first 
understand what the problem is. Is it: (1) a general lack of health 
care providers (primary care of specialists) in a certain geographic 
area, or (2) an adequate number of health care providers, but a 
reluctance to participate in TRICARE? I anticipate that the answer 
might vary depending on the geographic location. Similarly, the 
solution would have to vary and be appropriate for the local 
circumstances. I want to ensure that the quality of the health care is 
not compromised to increase provider participation. Based on 
information I have reviewed, I do believe that the Department of 
Defense has been provided with appropriate flexibility in determining 
reimbursement rates and encouraging TRICARE participation.
                    commitment to military retirees
    Question. In your opinion, what, if any, is the commitment on 
behalf of the Department of Defense and the military departments to 
provide health care through the Military Health Care System to those 
who have retired from the uniformed services?
    Answer. In my brief review of the implementation of TRICARE for 
Life, I have been impressed that the Administration has demonstrated a 
clear commitment to funding and implementing this benefit. The 
Department is wholly committed to providing excellent health care to 
all our beneficiaries, including military retirees. Military facility 
health care is finite. The entitlement to payment for civilian health 
care services under TRICARE, now available to retirees over 65 as well 
as under 65, provides assurance of comprehensive coverage for our 
retirees even when military providers are not available.
                               resourcing
    Question. Adequate financing of the Defense Health Program has long 
been an issue. In a hearing earlier this year, Secretary Rumsfeld 
acknowledged that the funding planned for fiscal year 2002 for the 
Defense Health Program reflected the Department's best estimate, but he 
could not be more precise.
    What ideas do you have for more accurately projecting the cost of, 
and appropriately resourcing, the Defense Health Program?
    Answer. If confirmed, I would focus on analyzing the process by 
which we develop our budget requirements and seek to understand our 
total requirements. The costs of the major components of the health 
care dollar are growing at different rates. We must understand these 
dynamics, be able to predict them, and take actions to manage them. 
This process should be helpful in improving both budget predictability 
and improving our resource allocation in future years. My civilian 
sector experience has focused on productivity, coordinated care 
programs, and using metrics for performance improvement. I think this 
focus will be very valuable in support of TRICARE.
    I am pleased that the President and Secretary of Defense have set 
the Department on a course to much greater stability by funding the 
Defense Health Program in fiscal year 2002 at a level in which we do 
not anticipate any need for a supplemental appropriation for health.
    If confirmed, I will closely monitor execution during the fiscal 
year not only of the Defense Health Program requirements but also 
monitor the overall healthcare trends in the civilian sector and make 
use of healthcare actuary experts to more accurately project cost 
requirements in the future.
         military health professional recruiting and retention
    Question. The Department of Defense relies on a combination of 
bonuses and incentives to recruit and retain health care professionals 
to provide care to military members and their families. The last 
legislative revision to applicable bonus amounts occurred approximately 
ten years ago. Given the inherent reduction in buying power of those 
programs over time, Congress, in last year's Authorization Act, 
directed the Department of Defense to conduct a review and report on 
the adequacy of special pays and bonuses for medical corps officers and 
other health care professionals.
    What are your views on the adequacy of existing bonus and pay 
incentive programs?
    Answer. I am still becoming familiar with the complex issues 
surrounding military bonus and specialty pay. If confirmed, I look 
forward to reviewing the draft reports being prepared for you that will 
review the existing programs and offer suggestions for improvement. I 
am committed to an overarching strategy to recruit and retain the best-
qualified health care professionals for a career in the military. It is 
important to properly manage recruiting, pay, and retention programs to 
ensure appropriate balance for Department missions and beneficiary 
needs.
    Question. If confirmed, will you undertake a close examination and 
development of recommendations regarding pay incentives?
    Answer. Yes, I will.
                        health care for veterans
    Question. On May 28, 2001, the President issued an executive order 
establishing a Presidential Task Force to Improve Health Care Delivery 
for Our Nation's Veterans. The 15-member Task Force is comprised of 
health care experts, officials familiar with Department of Veterans 
Affairs and Department of Defense health care systems, and 
representatives from veteran and military service organizations. The 
mission of the commission is to identify ways to improve benefits and 
services to those eligible for services through both agencies and to 
create greater collaboration in the delivery of health care between the 
two agencies.
    How do you envision the Department of Defense playing a role in 
this process and what opportunities do you foresee to work jointly with 
the Veterans Administration?
    Answer. If confirmed, I look forward to working in a supportive 
manner with the Presidential Task Force and with the Department of 
Veterans Affairs to further identify and expand joint opportunities. 
The Department of Veterans Affairs has an important mission in serving 
our Nation's veterans. I would work aggressively with the Department of 
Veterans Affairs to ensure opportunities for sharing resources and 
better business processes are not missed when both Departments and the 
taxpayer stand to benefit from improved coordination of Federal 
resources.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Health Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                          tricare contracting
    1. Senator Warner. Dr. Winkenwerder, the Department of Defense is 
moving toward new contracting approaches for purchasing health care 
services to augment our military treatment facility capabilities 
through the TRICARE program. What is your view of separating out 
particular functions, such as pharmacy services or claims processing, 
from major contracts and would you advocate a single nationwide 
contract for such services?
    Dr. Winkenwerder. While I believe there have been significant 
improvements over the past 5 years positively impacting the health care 
benefit, populations served, and contracts with private health care 
firms who assist in delivering health benefits to DOD beneficiaries, I 
do believe as health care delivery and financing continue to evolve and 
improve, there will always be ways to improve service and satisfaction, 
while reducing administrative complexity and reducing costs. With that 
said, in reviewing the TRICARE contracts, I believe DOD should be 
guided by these principles: improve those things that are in need of 
repair, retain those things that are working well, and do everything 
possible to avoid disruptive services to beneficiaries. This approach 
would retain many of the most essential elements of the existing 
TRICARE contracts--geographically based, risk-shared contracts, in 
which the prime contractor serves as the integrator for health care 
delivery in a region. At the same time, the benefits of competition in 
new contracts would further improve beneficiary satisfaction, sustain 
quality care, and increase the efficient management of the health 
program.
    Carving out of pharmacy services is consistent with industry 
practice. It is a practice I would support for TRICARE. I have doubts 
that a single worldwide contract for claims processing would be 
effective for the Department of Defense, but I would further examine 
the concept before making a final decision.

    2. Senator Warner. Dr. Winkenwerder, are there other areas that you 
feel would lend themselves to a separate procurement action?
    Dr. Winkenwerder. A further possibility could be to consider a 
separate marketing contractor to design and produce all TRICARE 
marketing materials. This would present a ``one face'' approach, thus 
eliminating program description discrepancies that are possible with a 
multi-contracted system.

                 tricare consolidated pharmacy benefit
    3. Senator Warner. Dr. Winkenwerder, Congress has had a long 
standing interest in the efficiency of the DOD pharmacy programs and in 
fact directed the Secretary of Defense to develop and implement a plan 
that would redesign the pharmacy programs and would incorporate best 
business practices of the private sector.
    Do you believe that the current concept of operations for the 
consolidated pharmacy benefit is consistent with the direction Congress 
has provided on this matter?
    Dr. Winkenwerder. While I have not been briefed in detail on the 
program, yet, it is my view that consolidating the pharmacy benefit is 
critical to providing the management structure and contracted services 
needed to fully achieve these goals. I would continue to solicit 
industry input and to review best business practices for incorporation 
into DOD programs where applicable and when consistent with 
congressional and executive direction.

    4. Senator Warner. Dr. Winkenwerder, how would you improve the 
consolidated pharmacy benefit to ensure that it conforms to the stated 
objectives of both the Secretary of Defense and Congress?
    Dr. Winkenwerder. I recognize the importance of this program to the 
Department of Defense and its beneficiaries. I would seek to 
continuously improve the program and to ensure that it represents both 
best practices in industry and meets the needs of all Department of 
Defense beneficiaries. I would want the program to be efficient and 
effective while being a model for the Nation.
                                 ______
                                 
              Question Submitted by Senator Strom Thurmond
                    role in domestic cbrn incidents
    5. Senator Thurmond. Dr. Winkenwerder, Department of Defense 
personnel have had extensive training on the treatment of chemical, 
biological, radiological or nuclear injuries. However, these resources 
have to focus on the needs of the Armed Forces.
    What role do you anticipate military medical personnel will have in 
responding to a domestic chemical, biological, or nuclear incident?
    Dr. Winkenwerder. I understand the DOD medical community has 
extensive knowledge, training, and research experience with chemical, 
biological, and nuclear threats. I believe DOD would provide that 
expertise to support the responsible civil authorities in a domestic 
incident, as long as it did not compromise the primary military 
mission.
                                 ______
                                 
    [The nomination reference of Dr. William Winkenwerder, Jr. 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 21, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Dr. William Winkenwerder, Jr., of Massachusetts, to be an Assistant 
Secretary of Defense, vice Sue Bailey.
                                 ______
                                 
    [The biographical sketch of Dr. William Winkenwerder, Jr., 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of Dr. William Winkenwerder, Jr.
    Since October 1998, Dr. William Winkenwerder, Jr., has been with 
Blue Cross and Blue Shield of Massachusetts, first as Executive Vice 
President for Health Care Services, and most recently, as Vice Chairman 
in the Office of the CEO. In these positions, he has been responsible 
for all business and clinical operations and activities for health 
providers (hospitals, physicians, pharmaceuticals, labs, etc.) and an 
annual medical expense budget of more than $3.0 billion.
    Prior to joining Blue Cross and Blue Shield, he was with Emory 
University from May 1996 to September 1998, first as Vice President for 
Emory Health Care then as Associate Vice President for Health Affairs. 
With Emory University, Dr. Winkenwerder was responsible for managing 
and developing a group practice of over 100 physicians affiliated with 
the university at the Robert Woodruff Health Sciences Center. From 
April 1992 to December 1995, he was Vice President and Chief Medical 
Officer for Southern Operations with Prudential Healthcare, responsible 
for health care management supporting 15 local managed care plans and 
affiliated medical group practices, providing care for 1.5 million 
employees in five southeastern states.
    From August 1988 to March 1992, Dr. Winkenwerder was Director of 
Quality Assurance and Associate Medical Director for the Southeast 
Permanente Medical Group of Kaiser Permanente. As a member of the 
senior management team, he was responsible for quality assurance, 
credentialing, utilization, cost management, and clinical information 
systems in a start-up HMO. From April 1987 to August 1998, he was with 
the Health Care Financing Administration of the U.S. Department of 
Health and Human Services as Special Assistant to the Administrator, 
responsible for policy coordination and development of medical payment 
issues in Medicare and Medicaid.
    Dr. Winkenwerder is a 1976 graduate of Davidson College. He 
received his MD from the University of North Carolina School of 
Medicine in 1981, and an MBA from the Wharton School at the University 
of Pennsylvania in 1986. He is currently on the Board of Directors for 
the American Association of Health Plans and the Federal Employees 
Program of the Blue Cross Blue Shield Association. He is a member of a 
number of professional associations, including the American Medical 
Association, the American College of Physicians--American Society of 
Internal Medicine, and the American College of Physician Executives. 
Dr. Winkenwerder has published writings on health policy in the New 
England Journal of Medicine and the Journal of the American Medical 
Association.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. William 
Winkenwerder, Jr., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William Winkenwerder, Jr., M.D.

    2. Position to which nominated:
    Assistant Secretary of Defense for Health Affairs.

    3. Date of nomination:
    September 21, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 27, 1954; Asheville, NC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Pride Winkenwerder; Mary Pride Schuler (maiden 
name).

    7. Names and ages of children:
    William (Will) Winkenwerder III--9 years old.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Davidson College (1972-1976), B.S. 1976.
    University of North Carolina School of Medicine (1977-1981), M.D. 
1981.
    University of Pennsylvania The Wharton School (1984-1986), M.B.A. 
1986.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Blue Cross/Blue Shield of Massachusetts, Inc., Boston, MA. 
Executive Vice President, Health Care Services Vice Chairman, Office of 
CEO--1998-2001.
    Emory University, Atlanta, GA. Associate Vice President for Health 
Affairs and Vice President, Emory Health Care--1996-1998.
    Prudential Healthcare, Atlanta, GA. Vice President, Chief Medical 
Officer for Southern Operations--1992-1995.
    Kaiser Permanente, Atlanta, GA. Associate Medical Director--1988-
1992.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Employee--Health Care Financing Administration, U.S. Department of 
Health and Human Services, Special Assistant to the Administrator--
1987-1988.
    Member--State of Florida Commission on Autologous Bone Marrow 
Transplantation--1993.
    Consultant Advisor--State of Georgia Governor's Task Force on 
Health Care Reform--1993.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Care Science, Inc., Member, Board of Directors--1997 to present.
    Blue Cross/Blue Shield of Massachusetts, Officer--Senior Vice 
President--2000 to 2001.
    American Association of Health Plans, Member, Board of Directors--
1999 to 2001.
    Center for Studying Health System Change, Member, Board of 
Advisors--1999 to present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    National Republican Party--Member.
    Georgia Republican Party--Member.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican National Committee, March 1998--$35.
    Republican National Committee, April 2000--$50.
    North Carolina Republican Party Victory 2000, October 2000--$1,000.
    Republican National Committee, July 2001--$50.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Athletic Scholarship (football), Davidson College--1972-1976.
    Foreign Fellowship Award, UNC School of Medicine--1981.
    Henry Wise Fellow Finalist--1983.
    Wharton Washington Fellowship, University of Pennsylvania--1986.
    Henry J. Kaiser Family Foundation Fellowship, University of 
Pennsylvania--1984-1986.
    Administrator's Citation, Health Care Financing Administration--
1988.
    White House Fellows Finalist--1991.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written. 
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Two presentations, one was an actual speech from March 1999, while 
the second from May 2001 was a slide presentation.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Dr. William Winkenwerder, Jr.
    This 9th day of July, 2001.

    [The nomination of Dr. William Winkenwerder, Jr. was 
reported to the Senate by Chairman Levin on October 15, 2001, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on October 16, 2001.]
                                ------                                

    [Prepared questions submitted to Dr. Everet H. Beckner by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Programs?
    Answer. The fundamental responsibility of the Deputy Administrator 
for Defense Programs (DADP) is to enhance the U.S. national security by 
assuring the safety, security and reliability of the existing nuclear 
stockpile and by maintaining the capability to design, develop, 
analyze, produce and test (if required) nuclear weapons now and in the 
future. In the broadest sense, the DADP must work with the 
administration and Congress to maintain and strengthen the nuclear 
weapons complex, consisting of its labs, plants and, most importantly, 
its people. He/she also must maintain successful interfaces and working 
relations with two especially important customers, the military end 
users and the regulators.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My scientific training is as a nuclear physicist. My career 
has advanced from research, to management of research, to management of 
development and manufacturing programs in an orderly fashion over the 
past 35 years. I have now been directly associated with the nuclear 
weapons program for over 20 years, with the last 15 years spent in 
senior management positions in both the U.S. and U.K. nuclear weapons 
programs. In that regard, I was Vice President for Weapons at Sandia 
National Laboratories in the late 1980's during the development of 
several of the weapons systems which are now mainstays of the 
stockpile. I was then Principal Deputy Assistant Secretary for Defense 
Programs at the Department of Energy from 1990 through 1995, the period 
when the Stockpile Stewardship concept had to be turned into a workable 
program to replace underground testing. More recently, I have been 
Deputy Chief Executive at the U.K. Atomic Weapons Establishment, which 
has the responsibility for design, development, production and 
maintenance of the U.K. nuclear weapons program.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Administrator 
for Defense Programs?
    Answer. Yes. I need to build strong relationships with my 
counterparts in other agencies, particularly the DOD and the Defense 
Nuclear Facilities Safety Board, as well as with Members of Congress 
and key staffers who I will need to work with effectively to assure the 
success of this element of the NNSA program.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Administrator of the National Nuclear Security 
Administration would prescribe for you?
    Answer. In addition to the duties associated with my position, the 
Administrator will expect me to work with the other Deputy and 
Associate Administrators through his newly established Management 
Council to enhance the efficiency and respect of the organization.
    Question. If confirmed, how would you work with the following:
    Other deputies in the NNSA.
    Answer. If confirmed, I see several important interactions 
requiring my attention with the Deputy Administrator for Nuclear 
Nonproliferation and the Assistant Administrators. In the case of the 
Deputy Administrator for Nuclear Nonproliferation, there are important 
synergies between the Nuclear Weapons programs and those of Nuclear 
Nonproliferation which we need to cause to occur more effectively and 
efficiently, to the benefit of both programs. Much of DP and NN work is 
common to the three principal DP laboratories, Los Alamos, Lawrence 
Livermore and Sandia National Laboratories and effective coordination 
of programs at Headquarters level can make for smoother operations at 
the labs, in terms of both manpower and facilities utilization. 
Technical ideas and innovation can also be shared between the programs 
so that we do not develop things twice for slightly different reasons. 
In the case of the interactions with the Assistant Administrators (AA), 
the interactions with the AA for Facilities and Operations will be 
crucial to the NNSA thrust for more efficiency in operations, for 
reductions in layers of oversight, and for proper stewardship of the 
critical facilities at both the labs and the plants.
    Question. The Assistant Secretary for Environmental Management.
    Answer. If confirmed, interactions with the Assistant Secretary for 
Environmental Management will be primarily in assuring a smooth 
transition of old and unused buildings and land at DP sites to an 
agreed, funded plan for decommissioning, decontamination and 
restoration of land.
    Question. Other Assistant Secretaries of the Department of Energy.
    Answer. If confirmed, interactions with other Assistant Secretaries 
will certainly occur on technical matters involving utilization of 
special facilities and capabilities at other DOE laboratories, in peer 
reviews of DP programs, in sharing of special capabilities at NNSA 
laboratories, and in development of DP staff through assignments (both 
short-term and long-term) into other areas of relevant DOE work as a 
part of their career development programs.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Administrator for Defense Programs?
    Answer. The major challenges that will confront the Deputy 
Administrator for Defense Programs will be in the installation of the 
new management strategies of NNSA, and in maintaining program focus so 
that planned goals and milestones are the right ones and are achieved 
on time and on budget. There is a general view that NNSA presently has 
too many overlapping functions and assigned personnel at the 
Headquarters and Field levels, leading to reduced efficiency in the 
labs and plants. The Administrator has committed to Congress to 
establish clear roles and responsibilities in all the NNSA activities, 
and, if confirmed, there will be a major role for me in making the new 
operational strategy work. The program planning and management tasks 
are critically tied to knowing what to do, when to do it, and to making 
clear assignments for the work. That planning function will be centered 
at Headquarters, with execution in the Field. There appears to be a 
major challenge in clarifying roles and responsibilities for both the 
planning function and the execution function, with far too much overlap 
in responsibilities (either assigned or assumed) at the present.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will review the planning activity to 
establish the validity and priority of present program plans, and to 
search for better ways for the research programs to address stockpile 
problems and find the most cost-effective solutions. In some cases, 
that will be to do nothing, if our collective judgement assures us that 
leaving a weapon system alone is better and safer than embarking on a 
modification and remanufacture program. Another payoff from a thorough 
planning activity is to optimize task loading of both the plants and 
the labs. It appears that DP is presently confronted with plans which 
will stretch or exceed several of the plant capacities unless better 
overall solutions are found. In some cases, DP will need support from 
the DOD and the services, to help deal with the reality that every 
weapon system cannot be the top priority. Finally, through proper 
planning, DP must bring some order and control to the requirements for 
future R&D and production construction projects.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Administrator for 
Defense Programs?
    Answer. The most serious management problems in the performance of 
the functions of the Deputy Administrator for Defense Programs are 
those of establishing a better understanding of roles and 
responsibilities between Headquarters and Field and getting them to 
work together. This originates from a program plan which is too 
detailed at Headquarters level and which encourages the labs and plants 
to spend too much time staking out program territory and too little 
time accepting responsibility for producing results which they know to 
be the right thing to do.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will lead the planning effort and the 
effort to establish proper roles and responsibilities such that within 
the first year we will have substantive results in the form of a new 
program planning strategy, probably some changes in the top-level 
program plan, and a new working relationship between the Headquarters, 
Field Offices, labs and plants, in terms of roles and responsibilities 
for program planning and execution. In its simplest form, the 
Headquarters will be responsible for the master plan, reconciled with 
the budget, and the field offices will be responsible for contracting 
for the execution of that plan and for oversight of the execution of 
work in the labs and plants.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Deputy Administrator 
for Defense Programs?
    Answer. If confirmed, the priorities which I would establish in 
terms of issues which must be addressed would center around planning 
and program execution against customer expectations. This means that DP 
must work with its customers first to establish the proper 
expectations, and then with the Administration and Congress to obtain 
funding to deliver against those expectations. The critical next step 
is to establish program plans and work authorizations to deliver those 
program requirements, with the final step being oversight and tracking 
of progress against program goals in the work conducted by the labs and 
plants.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Deputy Administrator for Defense Programs with the following 
Officials:
    The Administrator of the National Nuclear Security Administration.
    The Secretary of Energy.
    The Under Secretary of Defense for Acquisition and Technology.
    The Assistant to the Secretary of Defense for Nuclear Chemical and 
Biological Matters.
    The Commander in Chief of the Strategic Command.
    The Deputy Administrator for Nonproliferation.
    Associate Administrator for Facilities and Operations.
    Associate Administrator for Management and Administration.
    Answer. My understanding of the relationship of the Deputy 
Administrator for Defense Programs with other Officials is as follows:
    The Administrator. I report directly to the Administrator, 
assisting him in developing overall NNSA policy and plans, and in 
assuring that the DP labs and plants deliver against the agreed plans.
    The Secretary of Energy. I also report to the Secretary, through 
the NNSA Administrator.
    The Under Secretary of Defense Acquisition and Technology. In 
addition to his other duties within the Department of Defense, the 
Under Secretary is also the Chairman of the Nuclear Weapons Council 
(NWC). The NWC was established by Congress as the joint DOD/DOE 
organization responsible for the safety, security, reliability, and 
control of the U.S. nuclear stockpile. The Administrator of the 
National Nuclear Security Administration is the DOE member of the NWC. 
My role as Deputy Administrator for Defense Programs will be to support 
the Council and ensure that important issues requiring NWC attention 
are brought to the Council through our representative.
    The Assistant Secretary of Defense for Nuclear Chemical and 
Biological Matters. In addition to his other duties within the 
Department of Defense, the Assistant Secretary for Nuclear, Chemical 
and Biological Matters acts as the Executive Secretariat for the 
Nuclear Weapons Council and Chairs the subordinate committee to the 
NWC, known as the Standing and Safety Committee. This committee reviews 
issues and makes recommendations to the Nuclear Weapons Council. I 
expect to work closely with this committee to ensure important issues 
and sound recommendations are brought to the attention of the NWC.
    The Commander in Chief of the Strategic Command. This is the 
central customer at the DOD for the work of the National Nuclear 
Security Administration. The CINCSTRATCOM is also charged with 
rendering his judgment annually on the certification of the U.S. 
stockpile along with the Nuclear Weapons Council, and the Directors of 
the three Nuclear Weapons Laboratories. I expect that there will be 
numerous interactions with the CINCSTRATCOM regarding military 
requirements, and other discussions to address issues that may arise in 
our nuclear weapons stockpile.
    The Deputy Administrator for Nonproliferation. This was answered in 
question A on page 2.
    Associate Administrator for Facilities and Operations. This is the 
office which will be the steward for the Administrator of all NNSA 
facilities, in terms of operational readiness, compliance oversight of 
regulatory matters, and establishing priorities to satisfy future 
requirements. It will be important that the DADP and the AA for 
Facilities and Operations work smoothly together to optimize 
operational efficiency and readiness, to assure compliance of 
operations, and to acquire future facilities to upgrade the complex in 
a timely and cost-effective manner.
    The Associate Administrator for Management and Administration 
(M&A). This is the NNSA office with responsibility for future years 
planning and for budget control in the current year. The Planning 
Programming Budgeting and Evaluation (PPBE) Process is being installed 
by the AA for M&A, and Defense Programs will be using that system in 
its planning activities, as well as in its current year budget control 
activities.
    Question. The National Nuclear Security Administration (NNSA) has 
proposed legislation regarding the contractor National Laboratory 
Directors and contractor Weapons Plant managers and to whom they 
report. This legislation, if enacted, would eliminate the hierarchical 
reporting requirement of these officials to the Deputy Administrator 
for Defense Program and instead allow these same officials to report 
directly to the Administrator of the NNSA.
    If this legislation is enacted in the Fiscal Year 2002 National 
Defense Authorization Bill, will the National Laboratory Directors and 
Weapons Plant Managers have any residual reporting requirements to the 
Deputy Administrator for Defense Programs?
    Answer. This question and the one which follows are central to the 
Administrator's plan to clarify roles and responsibilities in the NNSA. 
If the reference legislation is enacted, the contractual connection 
between the labs and the plants will be directly through the 
contracting officers to the Administrator. At the same time, progress 
in program activities will flow upwards from the labs and plants 
through the field offices and into the Headquarters of Defense 
Programs. These relationships will be different depending on the time 
frame under consideration. The primary DP Headquarters concerns will be 
with formulation and specification of planning and budget requirements, 
and for that the labs and plants (in some cases the lab directors and 
plant managers themselves) will provide both technical and financial 
input. Similarly, when DP is working with Congress on budget and 
program input, information for this will often be provided by the DP 
labs and plants. For ongoing work at the labs and plants, only on 
extraordinary occasions would it be necessary to have direct 
communication from the lab directors or plant managers. So, you might 
say that, while the lab directors and plant managers report directly to 
the Administrator, the programs from their institutions normally report 
into DP Headquarters.
    Question. If this legislation is enacted, what steps would you 
anticipate the NNSA would take to ensure there is no confusion about to 
whom NNSA officials, National Laboratory Directors, Weapons Plant 
Managers, and other relevant officials and contractors would report?
    Answer. The steps taken by NNSA to ensure there is no confusion 
about the reporting chain for NNSA officials, lab directors, plant 
managers and other relevant officials and contractors will be a high 
priority management task for all of NNSA in the coming year. The most 
important tool for guiding all DP elements in developing these new 
processes and driving the necessary change will be the DP planning 
processes, both long term and short term, and the PPBE process that 
requires the output from these plans. This will establish the reporting 
processes within the program planning and execution structure.
                     stockpile stewardship program
    Question. One of the purposes of the Stockpile Stewardship Program 
is to identify potential problems with nuclear weapons, fix the item 
before it rises to a problem, and then ensure that the fix is adequate 
and has not introduced a new problem. As a result, the weapons are 
being scrutinized more closely than in the past and with better 
science-based capabilities. In addition, greater scrutiny is being 
given to matters that were not well understood in the past. What to do 
with this new level of knowledge is also presenting a challenge.
    In your view, how do you balance newly discovered issues that have 
existed from manufacture and changes that have occurred since 
manufacture?
    Answer. The criteria for balancing newly discovered issues from 
those that have occurred since manufacture is more properly a matter of 
deciding the priority of all stockpile issues. A starting premise for 
nuclear weapons is, indeed, that generally the best thing to do is 
leave them in their ``as built'' condition until there is clear 
evidence that something needs to be fixed.
    Question. Should life extension programs improve systems or 
maintain them?
    Answer. As to the question of whether life extension programs 
should improve systems or maintain them, it is again important first to 
assess the contemplated action within the context of the entire 
stockpile and the present-day military requirements. Only then can we 
expect to make decisions as to what needs to be improved and what needs 
only to be maintained.
    Question. With budget challenges, what is the best way for 
determining how to make these tradeoffs?
    Answer. As to the relationship of budget challenges to these 
aforementioned considerations, the answer is clear. The decisions must 
be based on cost-benefit criteria in every case.
                             plutonium pits
    Question. One of the most significant challenges facing the Office 
of Defense Programs is regaining the capability to manufacture and 
certify a pit.
    Have you had an opportunity to review the current plan to certify a 
pit?
    If so, do you believe that the approach is correct?
    If you have not had the opportunity to review the current plan, 
would you please do so and inform the committee as soon as possible 
after your confirmation, if confirmed, of your view on the plan and 
report your findings to the committee?
    Answer. I have not had an opportunity to receive a detailed review 
of the current LANL plan to certify a pit. If confirmed, I will inform 
the committee of my views as soon as possible after my confirmation, 
given the importance of reestablishing this important national security 
capability.
    Question. The Foster Panel Report, also known as the Fiscal Year 
2000 Report to Congress of the Panel to Assess the Reliability, Safety, 
and Security of the United States Nuclear Stockpile, found that it 
could take 15 years from the point of developing a conceptual design 
for a pit production facility until the final construction of the 
facility is completed. If it is determined through the science-based 
Stockpile Stewardship Program that one or more of our existing pit 
designs is no longer reliable, and therefore is not certifiable, our 
nuclear stockpile would, in effect, be unilaterally downsized below a 
level which could maintain a strong nuclear deterrence.
    What progress has NNSA made towards a conceptual design for a pit 
production facility?
    How confident are you that NNSA will be able to successfully 
deliver a new pit production facility, if required, within the next 10 
to 15 years?
    What is the requirement, both in production capacity and schedule, 
that a new facility would meet?
    Answer. While I have not been briefed in detail on a modern pit 
facility, there are several issues that must be addressed before 
proceeding with this costly, new facility. First, the Administration 
must complete the Nuclear Posture Review, which will tell us the size 
of the stockpile that we will need to support in the future. Second, 
studies on pit life need to be completed. Third, contingency 
requirements need better definition. With these facts in hand, we will 
be able to properly size and design a modern pit facility to meet the 
needs of the stockpile into the 21st century.
                            nuclear testing
    Question. In your view, will the United States need to resume 
underground nuclear testing in the foreseeable future in order to 
ensure the reliability, safety, and security of the United States 
strategic nuclear forces?
    Answer. I believe the President has recently reported on this 
subject to Congress. At this time, I know of no reason to change the 
views expressed in that report.
    Question. The Foster Panel Report also reported DOE's view that it 
would take 24-36 months to conduct an underground nuclear test, if so 
directed by the President.
    Do you agree with the Foster Panel that it would take 24-36 months 
to conduct a test?
    In your view, should NNSA reduce the time it would take to perform 
an underground nuclear test to less than 24 months?
    What type of test would be required that would have to be conducted 
in less than 24 months?
    Answer. These questions on the report of the Foster Panel are 
similar to those on the Pit Production Facility. Given the importance 
of this issue, I need to be extensively briefed by the DP staff before 
I would be comfortable providing an answer.
    I will say this, however, that neither testing nor any other 
element of the DP weapons programs should be analyzed in isolation. In 
each and every case, since availability of resources is always central 
to the question of what gets done and what does not, a thorough cost-
benefit analysis must be done of all the program priorities in order to 
make such decisions. I recognize that such analyses are always fraught 
with uncertainties, but decisions based on the best available 
information will always be my preferred approach.
                      maintenance of the stockpile
    Question. Are you confident in our ability to identify and fix 
potential problems in all weapons expected to be included in the 
enduring stockpile?
    Answer. I am confident that with the continued support of the 
Administration and Congress the highly skilled men and women of the 
weapons complex will be able to ensure the continued safety, security 
and reliability of the U.S. nuclear deterrent.
    Question. What do you believe to be our biggest challenges in 
maintaining the nuclear weapons expected to be in the enduring 
stockpile?
    Answer. The biggest challenges in maintaining the nuclear weapons 
expected to be in the enduring stockpile will be one of confidence in 
the answers, in the absence of full scale test data. In the final 
analysis, when confidence is low, it will be necessary to take 
immediate action, either in the form of manufacturing a more 
predictable solution, if possible, withdrawing the weapon from the 
stockpile, or recommending a return to testing to solve the problem.
    Question. What specific criteria should the NNSA apply to the new 
facilities and infrastructure initiative to ensure the maintenance and 
repair backlogs are eliminated using the most efficient and least 
expensive plan?
    Answer. The criteria for NNSA to apply to the new facilities and 
infrastructure initiative is that which I have put forward previously 
the most cost-effective solution, in light of an analysis of the entire 
set of problems requiring attention. The ``cost'' part of the analysis 
can generally be made using ``more or less'' standard engineering 
techniques. The ``effective'' part of the analysis requires 
participation by both NNSA and its customers, since there will be 
priorities to be weighed which are outside the decision-making space of 
NNSA.
    Question. How can the NNSA avoid these types of maintenance and 
repair backlogs in the future?
    Answer. NNSA can avoid these types of maintenance and repair 
backlogs in the future by maintaining a thorough long-range program 
plan which Congress can support, by getting input from its customers on 
their priorities so that not everything has to be done immediately, and 
by making hard choices which almost certainly will not please all the 
people all the time.
    Question. Is the NNSA taking such action to avoid backlogs?
    Answer. Under the NNSA Administrator's reorganization, the 
responsibility for facilities and infrastructure has been assigned to 
the Assistant Administrator for Facilities and Operations (AAFO). If 
confirmed as Deputy Administrator for Defense Programs, my deputies and 
I will work with the AAFO to ensure the existing backlog is worked off 
and that plans are in place to avoid future backlogs.
                        limited life components
    Question. How confident are you in the Department of Energy's 
ability to manufacture limited life components for the enduring 
stockpile?
    Answer. My confidence in the NNSA's ability to manufacture limited 
life components for the enduring stockpile is quite high, with the 
exception of the requirements for radiation hardness which are in place 
for certain components. To date, I believe such problems have been 
solved to the satisfaction of the labs and the services. However, 
trade-offs may have to be made in the future in which the hardness 
specifications of existing military requirements have to be weighed 
against the cost of obtaining high-confidence solutions.
                  project and construction management
    Question. DOE and the NNSA have made significant efforts to improve 
their construction and project management. One element of these 
improvements is strict oversight and formalized reviews of the various 
programs.
    If you are confirmed, will you keep these activities in place?
    Answer. Yes, although I will want to be comfortable with the 
details of the oversight and reviews.
    Question. NASA faces significant challenges to modernize its 
facilities and reduce the overall square footage of the facilities, and 
reduce its maintenance expenses.
    Will you maintain the requirement that any new construction must 
have as part of the project the funds to tear down the old facilities 
that are being replaced or otherwise ensure a reduction in the size of 
facilities at a particular site?
    Answer. I am not at this time familiar with the requirement that 
any new construction must have funds to tear down the old facilities or 
otherwise ensure reduction in the size of the facilities. It sounds 
reasonable, but I would want to understand the full scope of that 
requirement before committing to it.
                   advanced supercomputing initiative
    Question. Do you support moving to a 100 teraops computer as the 
next computer purchased or would you advocate an interim computer or 
computers? If you support the interim approach, what capacity should 
these interim machines have in your view and when would you see a need 
for 100 teraops or beyond?
    Answer. I understand that the laboratories currently have 3 Teraop 
machines at Sandia and LANL and a 12 Teraop machine at Lawrence. I 
further understand that a 30 Teraop machine is scheduled for 
installation at Los Alamos. The ASCI program, as it is currently 
structured, is scheduled to accept a 100 Teraops machine in 2005. I 
have not been briefed in detail by the program office on the sequence 
of steps to achieve 100 Teraops.
                       national ignition facility
    Question. The funds for the National Ignition Facility (NIF) were 
budgeted to accommodate annual budget projections and developed to 
finish the project as quickly and as cheaply as possible.
    Would you support restructuring the NIF budget to reduce the 
overall cost of the project and complete the project sooner than the 
current schedule would allow?
    Answer. I have not yet received detailed briefings which would 
allow me to answer this question with confidence. My personal view is 
that the answer is no, based on a personal philosophy that to do 
something right is generally preferable to doing it quickest.
    Question. In your view, will the scientific information sought from 
the NIF have enough value to justify its cost as part of the Stockpile 
Stewardship Program if the NIF does not reach ignition?
    Answer. I believe that decision has already been made. It is my 
understanding that the project is well past the point where such 
analyses and decisions should be made. On the assumption that the 
project will be even moderately successful, my personal views are that 
stopping the project at this late date would be imprudent if not 
downright foolish. Obviously, ignition is an important goal of the 
project. Based on my present understanding of the physics of the 
processes and the program expectations, I know of no evidence to 
suggest that ignition is unachievable on NIF. That said, I am fully 
aware that this goal has been before us for a long, long time, and that 
a community of nay-sayers is crowding around the arena just waiting for 
the first evidence of trouble.
    Question. In your view, if the NIF fails to reach ignition, does 
that preclude us from being able to certify a nuclear weapon, without 
underground testing in the distant future?
    Answer. At this time, I know of no weapon certification problem 
which is uniquely dependent on ``ignition conditions in NIF for 
solution. The ignition environment in NIF is indisputably an important 
environment for obtaining understanding will assist us in continuing to 
certify weapons, in the absence of full scale testing. The further we 
look into the future, the more important this capability becomes, for a 
variety of reasons.
    Question. In your opinion, could the National Ignition Facility 
meet its goal of ignition with a reduced number of lasers below the 
192-laser design?
    Answer. I am not adequately informed at this time to provide an 
opinion on the importance of 192 laser beams in meeting the ignition 
goal. I do believe that the more power and energy available, the higher 
the probability of success.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Programs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Answer. Yes.
                                 ______
                                 

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                         pit production complex
    1. Senator Thurmond. Dr. Beckner, earlier this year, the Panel to 
Assess the Reliability, Safety, and Security of the United States 
Nuclear Stockpile issued its report and testified before this 
committee. The principle recommendation this year, as it was last year, 
is to restore missing pit production capabilities and refurbish the pit 
production complex.
    Do you agree with this assessment and would you support the 
beginning immediately to start conceptual planning and design of a 
large pit production facility?
    Dr. Beckner. As long as the United States retains a nuclear 
deterrent, we must have the capability to produce all the components of 
a nuclear weapon. The Los Alamos National Laboratory (LANL) is working 
diligently to restore a limited pit manufacturing capability for the 
United States. To date, LANL has produced 11 developmental pits and is 
on schedule to have a certifiable pit by 2003. The NNSA and LANL are 
also working diligently to reduce the time needed to deliver a 
certified pit to the stockpile from 2009.
    Before committing tax dollars for construction of a new and costly 
modern plutonium manufacturing facility several issues must be 
addressed. First, the administration must complete the Nuclear Posture 
Review, which will determine the size and composition of the nuclear 
weapons stockpile that we will be responsible for supporting. Second, 
results from ongoing studies of pit life times must be considered. 
Third, contingency requirements on production capacity needs better 
definition.
    While the aforementioned studies are ongoing, the NNSA has taken 
steps, consistent with Congressional direction, to prepare the analysis 
needed to support a decision on a modern pit facility. Defense Programs 
plans to request Critical Decision Zero (CD-0) from Administrator 
Gordon and the Deputy Secretary of Energy in the second quarter of 
fiscal year 2002 which will formally initiate conceptual design and the 
National Environmental Policy Act (NEPA) compliance process. The fiscal 
year 2002 Energy and Water Development Appropriations bill will allow 
the NNSA to begin the NEPA work, technology development, and facility 
conceptual design activities.

     2. Senator Thurmond. Dr. Beckner, this committee has long been 
concerned with the massive quantities of weapons grade nuclear 
materials left over in the former Soviet Union after the Cold War. In 
1993 the committee created the Office of Fissile Materials Disposition 
at the Department of Energy and we were also deeply engaged in the 18 
months of arduous negotiations that resulted in the Plutonium 
Management and Disposition Agreement of September 2000. Unfortunately, 
there are some officials in the administration who opposed the program 
as it is currently structured.
    Do you support the Plutonium Management and Disposition Agreement 
of September 2000?
    Dr. Beckner. Yes. I am committed to implementing the Plutonium 
Management and Disposition Agreement signed by the United States and 
Russia in September 2000. This agreement provides for the disposition 
of 68 metric tons of weapon-grade plutonium-34 metric tons in each 
country.

     3. Senator Thurmond. Dr. Beckner, what actions should we take to 
get this important national security program back on track? 
    Dr. Beckner. The administration is reviewing United States' 
nonproliferation assistance to Russia including the Department of 
Energy's plutonium disposition program. As part of this effort, the 
Department is leading an interagency review of options to make the 
current plutonium disposition program more cost effective and 
sustainable. We will complete this review as soon as possible and make 
a final decision in time for the fiscal year 2003 budget submission to 
Congress.
                                 ______
                                 

    [The nomination reference of Dr. Everet H. Beckner 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 25, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Dr. Everet H. Beckner, of New Mexico, to be Deputy Administrator 
for Defense Programs, National Nuclear Security Administration, vice 
Madelyn R. Creedon, resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Everet H. Beckner, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Everet H. Beckner
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Everet 
Beckner in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Everet Hess Beckner.

    2. Position to which nominated:
    Deputy Administrator, Defense Programs.

    3. Date of nomination:
    September 25, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 24, 1935; Clayton, New Mexico.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Caroline Allen Beckner.

    7. Names and ages of children:
    Gregory Mitchell Beckner, 42.
    Lee Elizabeth Beckner Strouse, deceased.
    Matthew Hess Beckner, 30.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Clayton, NM High School, 1948-52.
    Baylor University, 1952-56, B.S. 1956.
    Rice University, 1957-61, M.A. 1959, Ph.D. 1961.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Sandia National Laboratories, Albuquerque, NM--Vice President, 
Defense Programs, 1986-1990.
    U.S. Department of Energy, Washington, D.C.--Principal Deputy 
Assistant Secretary for Defense Programs, 1991-1995.
    Lockheed Martin Corporation, Bethesda, MD and Aldermaston, U.K., 
Vice President: Tech Ops: 1996-2000. Vice President and Deputy Chief 
Executive, U.K. Atomic Weapons Establishment: 2000-2001.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    New Mexico Governor's Advisory Group on Economic Development.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director, AWE plc. I resigned this position on August 31, 2001.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Fellow: American Physical Society.
    Member: American Institute for the Advancement of Science.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member--Republican Party.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican Party--$100.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Fellow--American Physical Society.
    Performance Award--USDOE.
    Performance Award--Lockheed Martin.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    All are more than 15 years ago. Physics research articles on plasma 
physics, nuclear physics, intense electronic beam physics: 
approximately 50.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Everet H. Beckner.
    This 1st day of October, 2001.

    [The nomination of Dr. Everet Beckner was reported to the 
Senate by Chairman Levin on December 18, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on January 25, 2002.]
                                ------                                

    [Prepared questions submitted to Mary L. Walker by Chairman 
Levin prior to the hearing with answers supplied follow:]

                                                   October 5, 2001.
Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                   Mary Walker.
    Enclosure.
cc: Senator John Warner,
   Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I am unaware of any specific provisions of the act that 
have not been implemented. If confirmed, I will take all steps 
necessary to assist the Department of the Air Force in continued 
implementation and compliance.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The legislation clarified the roles and relationships among 
the combatant commanders, the services, the Chairman of the Joint 
Chiefs of Staff, and the National Command Authorities. As such, the 
reforms have enhanced joint operational planning and execution, 
enhanced effective civilian control, and increased efficiencies within 
the services.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control, improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles, which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposal to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am not currently aware of any Department of Defense 
sponsored legislative proposals to amend the Goldwater-Nichols Act. If 
confirmed, I will be in a better position to carefully review and 
evaluate possible changes in light of the overall objectives of the 
act.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Air Force?
    Answer. The General Counsel is the chief legal officer of the 
Department of the Air Force. As such, the legal opinions issued by the 
General Counsel are the controlling legal opinions within the 
Department. The General Counsel provides legal advice and guidance to 
the Secretary, the Under Secretary, the Assistant Secretaries, their 
staffs, and other offices within the Office of the Secretary, as well 
as to the Chief of Staff and the rest of the Air Staff. The General 
Counsel also provides legal services throughout the entire Department 
in a variety of disciplines including fiscal law, ethics, contract law, 
environmental law, international law, intellectual property law, real 
property law, personnel law, labor law, and litigation. The General 
Counsel also serves as the Designated Agency Ethics Official, the 
Suspending and Debarring Official for the Department of the Air Force, 
and exercises oversight of intelligence and other sensitive activities 
and investigations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have practiced law for more than 20 years specializing in 
environmental and land use law and litigation, including interpretation 
and negotiation of government regulations. I have also worked on other 
matters, including business litigation, real estate, mergers and 
acquisitions and labor (Title VII) matters.
    In the course of serving the Reagan Administration at the 
Departments of Justice and Interior, I supervised in excess of 100 
government lawyers and worked closely with Defense Department lawyers 
on major cases affecting government lands. I am comfortable advising 
and briefing senior officials on legal issues and enjoy working as a 
part of a team, cultivating the talents in the career staff who serve 
so faithfully. I have also served on several international delegations 
and on an international commission. As Assistant Secretary for 
Environment, Safety & Health of the Department of Energy, I was 
responsible for the safety oversight of the nuclear weapons program, 
and in this capacity, worked closely with the nuclear Navy on radiation 
standards applicable to the Navy Department.
    In private practice, I have advised CEOs, businesses and local 
governments of their obligations under law and the options they have in 
order to creatively accomplish their goals. I understand the tough 
decisions that must sometimes be made when competing interests are 
involved. I believe this experience has equipped me to serve the 
Department of the Air Force and my country in this role.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Air Force?
    Answer. I believe I have the necessary legal training, experience 
and leadership abilities to be the General Counsel. If confirmed, I 
will benefit from the extraordinary talent, expertise and experience of 
the civilian and military lawyers in the Department as I broaden my 
understanding of the issues the Air Force faces every day.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Roche would prescribe for you?
    Answer. If confirmed, I anticipate Secretary Roche will expect me 
to provide timely, accurate, and candid legal advice and counsel, 
ensuring compliance with the law and the protection of the legal 
prerogatives of the Department. I expect the duties and functions of 
the office will cover the wide range of legal issues and 
responsibilities prescribed under the appropriate Secretary of the Air 
Force Orders. Additionally, I anticipate the Secretary would expect me 
to manage the General Counsel's Office efficiently and effectively, to 
foster an atmosphere of professionalism and responsiveness regarding 
all legal matters and services, and to continue the close and highly 
effective professional relationship between the Office of the General 
Counsel and the Judge Advocate General and his staff as well as the 
legal staffs of other government agencies with whom we work.
    Question. In carrying out your duties, how will you work with the 
Judge Advocate General of the Air Force?
    Answer. If confirmed, I will maintain a close professional 
relationship between the Office of the General Counsel and the Judge 
Advocate General Department. Full consultation and coordination of 
matters of mutual import and interest would characterize that 
relationship. It is imperative that the two offices work well together 
to provide the highest quality of legal support to the Department of 
the Air Force.
    Question. How are the legal responsibilities of the Department of 
the Air Force allocated between the General Counsel and the Judge 
Advocate General?
    Answer. Secretarial Orders delineate the responsibilities of the 
General Counsel and the Judge Advocate General. Those Orders reflect 
the extensive coordination between lawyers serving in those offices. 
The Judge Advocate General is the senior uniformed legal officer of the 
Department of the Air Force. Among his responsibilities is the 
administration of military justice throughout the Air Force and 
ensuring effective field legal support to commanders as well as to the 
Chief of Staff and the Secretary of the Air Force consistent with the 
Secretarial Orders.
    As the Chief Legal Officer of the Department, the General Counsel 
is responsible for oversight and direction of legal matters within the 
Air Force, for furnishing legal advice and assistance to the Office of 
the Secretary of the Air Force, for providing legal advice and 
assistance to the Air Staff consistent with the Secretarial Orders, and 
for performing other such functions as the Secretary may direct. The 
Office of the Air Force General Counsel and the Judge Advocate General 
Department have maintained a close and effective working relationship, 
which I will strive to maintain if confirmed.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. The General Counsel of the Department of Defense is the 
Chief Legal Officer and final legal authority for the Department of 
Defense, including the Department of the Air Force. If confirmed, I 
expect to interact with Mr. Haynes' office on matters of mutual 
interest or concern. Should our interpretation of the law differ, I 
will defer to the DOD General Counsel's opinion after advising him of 
my independent professional opinion. I anticipate frequent interaction 
with the DOD General Counsel. I believe a professional relationship 
based on information exchange and consultation will benefit the entire 
Department.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Air Force?
    Answer. While it is difficult to anticipate specific legal 
questions, I think it is crucial that the legal prerogatives of the 
Department of the Air Force be protected as the Nation evaluates and 
builds the most appropriate air and space strategy for a changing and 
complex national security environment. Legal issues are certain to be 
involved in that process. Additionally, legal guidance will be 
necessary as the Air Force addresses retention issues. Third, the 
General Counsel must be prepared to assist in efforts to improve 
acquisition processes and organizational structures in order to enhance 
innovation and effectiveness.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan on working closely with the Secretary, 
with the Chief of Staff, and with the talented and dedicated attorneys 
of the Department to candidly evaluate the challenges and to ensure 
responsive and accurate legal services to address these challenges.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the General Counsel of the 
Department of the Air Force?
    Answer. I am not aware of any serious problems.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If confirmed, I will make sure that any problems identified 
in the performance of the General Counsel functions will be addressed 
as expeditiously as possible and through appropriate channels.
    Question. Do you believe the Department of the Air Force has the 
legal resources necessary to carry out the missions that may be 
required of it in wartime? If not, what is needed?
    Answer. I believe legal ``readiness'' is a vital component of 
mission readiness. The Department of the Air Force requires the highest 
quality of legal support. I am currently unaware of any deficiencies in 
legal resources that would prevent the Air Force from carrying out its 
wartime missions. Having said that, legal readiness, like mission 
readiness, requires constant vigilance. Recruiting, training, and 
retaining motivated professionals must always be a priority.
                               priorities
    Question. What broad priorities will you establish in terms of 
issues, which must be addressed by the General Counsel of the 
Department of the Air Force?
    Answer. If confirmed, my foremost priority will be to provide the 
Department timely, accurate, and candid legal advice, ensuring 
compliance with the law and the protection of the legal prerogatives of 
the United States Air Force. It is imperative that the Air Force has 
the legal support necessary to build the very best air and space 
strategy and forces possible.
                    recruiting and retention issues
    Question. How do you assess your ability to hire and retain top 
quality civilian attorneys and provide sufficient opportunity for 
advancement?
    Answer. I am hopeful that the Air Force will maintain the ability 
in the future to obtain and retain the highest quality civilian 
attorneys both in the General Counsel's Office and the Judge Advocate 
General's Department. If confirmed, I want to make service as a 
civilian attorney in the Air Force as attractive and professionally 
rewarding as I possibly can.
    Question. In your view, does the Department of the Air Force have a 
sufficient number of Air Force judge advocates on active duty to 
perform the missions assigned to the Judge Advocate General's Corps?
    Answer. I believe that the Department of the Air Force must have 
sufficient military lawyers to meet the needs of the Air Force. If 
confirmed, I will work closely with the Judge Advocate General of the 
Air Force to ensure that there are a sufficient number of judge 
advocates to perform the missions assigned to the Judge Advocate 
General.
    Question. In your view, what incentives to successful recruiting 
and retention of judge advocates need to be implemented or established?
    Answer. If confirmed, I will work with the Judge Advocate General 
of the Air Force to ensure that there are sufficient incentives to 
assure successful recruiting and retention of judge advocates. Some of 
those incentives that I would expect to examine would include student 
loan deferral for military service and continuation pay, as well as 
other competitive pay and benefit issues.
                        military justice matters
    Question. Since Article 6 of the Uniform Code of Military Justice 
gives primary jurisdiction over military justice to the Judge Advocates 
General, how do you see your functions in this area with regard to the 
Judge Advocate General of the Air Force?
    Answer. Article 6 of the Uniform Code of Military Justice states 
``the Judge Advocate General or senior members of his staff shall make 
frequent inspection in the field in supervision of the administration 
of military justice.'' I recognize that the Judge Advocate General has 
special expertise in the area of military justice and statutory duties 
regarding its administration. As the Chief Legal Official in the 
Department of the Air Force, I would provide the Secretary legal advice 
in this area as he desires and I would consult closely with the Judge 
Advocate General on military justice matters of mutual interest if 
confirmed.
    Question. In your view, how should the General Counsel approach 
military justice matters--both in terms of specific cases and general 
policy issues to provide useful advice without generating problems of 
unlawful command influence?
    Answer. I believe the General Counsel has an obligation to help 
safeguard the fairness, independence, and credibility of the 
Department's disciplinary procedures. That duty includes the 
responsibility to advance policies necessary for the maintenance of 
good order and discipline. In doing so, the General Counsel must avoid 
any action that may inappropriately affect or appear to inappropriately 
affect the outcome of any particular case. The General Counsel must 
help ensure the military justice system, its judicial officers, 
commanders and convening authorities ultimately responsible for 
disciplinary action are free to exercise their personal discretion 
within the bounds of the law.
    Question. In recent years, there have been a number of cases in 
which military members have been accused of adultery. Concerns have 
been raised about the consistency with which these cases have been 
handled.
    What do you see as the role of the General Counsel of the 
Department of the Air Force in ensuring the Uniform Code of Military 
Justice is enforced in a fair and consistent manner?
    Answer. I view the role of the General Counsel in this area as 
working closely with the Judge Advocate General, and I will commit to 
do so in order to appropriately ensure consistency, fairness and 
credibility of the military justice system.
    Question. Do you see a need for any changes in either the law or 
its implementation in this area?
    Answer. I am not aware of the need for any changes at this time. If 
confirmed, I would consult fully with the Judge Advocate General on 
this matter and carefully consider recommendations from the Joint 
Services Committee on Military Justice as well as the General Counsels 
of other Departments.
    Question. It has been suggested that the twin legal staffs of the 
military departments--uniformed personnel, headed by the Judge 
Advocates General, and civilian personnel, headed by the General 
Counsels--need to be unified or rationalized in the interests of 
economy and clarity.
    What are your views on this matter?
    Answer. I am not aware of any suggestions to fundamentally change 
the organization of, or relationship between, the General Counsel's 
office and the Judge Advocate Generals Department. Under Title 10 of 
the United States Code, the General Counsel is the Chief Legal Officer 
of the Department and provides oversight, guidance and direction for 
legal matters throughout the Air Force. The Judge Advocate General is 
the senior uniformed lawyer in the Air Force and, in addition to some 
specific responsibilities with regard to the Uniform Code of Military 
Justice, performs duties as prescribed by the Secretary, as does the 
General Counsel. The duties and responsibilities of the respective 
offices, which I understand to be complimentary rather than 
duplicative, are set out in Secretary of the Air Force Orders.
    The staffs of the Office of the General Counsel and the Judge 
Advocate General's Department are not exclusively civilian and 
exclusively military. Civilian and military lawyers work for the 
General Counsel. Likewise, civilian and military lawyers work in the 
Judge Advocate General's Department. If confirmed, I look forward to 
working with the Judge Advocate General to develop further efficiencies 
in providing the highest quality legal advice and services throughout 
the Air Force.
    Question. The complexity of criminal prosecutions involving 
espionage, national security violations, and other crimes in which 
capital punishment may be awarded has raised questions about the 
experience and qualifications of military attorneys to prosecute and 
defend such cases.
    If confirmed, will you assure the committee that you will examine 
the capabilities of the Air Force to competently litigate such cases 
and ensure that the Department of the Air Force is fully prepared to 
investigate and prosecute national security and capital punishment 
cases in an appropriate manner?
    Answer. Yes.
               role in military personnel policy matters
    Question. What role, if any, should the General Counsel play in 
military personnel policy and individual cases, including cases before 
the service boards for the correction of military records?
    Answer. I believe the General Counsel's appropriate role in this 
area is to assist the Secretary of the Air Force, the Assistant 
Secretary of the Air Force (Manpower and Reserve Affairs) and other 
senior Department of the Air Force leaders to ensure that the 
Department's military personnel policies are formulated and applied 
uniformly, fairly, and in accordance with applicable laws and 
regulations. If I become aware of individual cases in which military 
personnel policies were not fairly and lawfully applied, I will take 
appropriate action to ensure that the case is properly resolved. If 
confirmed, I will coordinate with the Assistant Secretary of the Air 
Force (Manpower and Reserve Affairs), who exercises overall supervision 
for the Department of the Air Force Military Review Boards Agency, to 
ensure that the Air Force Board for Correction of Military Records 
receives the Air Force legal community's full support. I understand 
that the Office of the General Counsel provides legal advice for the 
resolution of cases considered by the Secretary and his designees. I am 
also informed the Office of the General Counsel participates in the 
resolution of significant legal issues affecting the Air Force Board 
for the Correction of Military Records. If confirmed, I would expect to 
continue this involvement.
                        whistleblower protection
    Question. Section 1034, Title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the Armed 
Forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command. We continue to see a 
lack of understanding in the senior military leadership of the policy 
that it is appropriate and necessary to protect service members who 
report misconduct to appropriate authorities outside of the chain of 
command.
    Do you support prohibiting retaliatory personnel actions for making 
protected communications?
    Answer. Yes.
    Question. If confirmed, what actions will you take to ensure that 
senior military leaders understand the need to protect service members 
who report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. I believe that the military member's right to report 
perceived misconduct is sacrosanct. If confirmed, I will review the 
steps the Department has taken and is taking to inform Air Force 
members of their rights and responsibilities under the act. If 
additional measures are required, I will work with the Judge Advocate 
General to implement appropriate training and reporting procedures.
                              legal ethics
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Air Force?
    Answer. The client of the General Counsel is the Department of the 
Air Force. While the Department acts through its authorized officials, 
if a conflict arises between the interest of the Department and the 
interests of an official, the General Counsel's duty is to the 
Department.
    Question. What is your understanding of the action a Department of 
Defense attorney should take if the attorney becomes aware of improper 
activities by a Department of Defense official who has sought the 
attorney's legal advice and the official is unwilling to follow the 
attorney's advice?
    Answer. The attorney should immediately bring the matter to the 
attention of the attorney's supervisor and, if not satisfactorily 
resolved, to higher level supervisory lawyers or authorities in the 
chain of supervision or command.
    Question. In your view, do the laws, regulations and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of Defense provide adequate guidance?
    Answer. Yes. I am informed all DOD lawyers are members of a Bar and 
are therefore subject to the rules of professional responsibility of 
their particular jurisdiction. Lawyers engaged in litigation must also 
comply with the rules of the court in which they appear. All military 
and civilian lawyers in the Judge Advocate General's Department of the 
Air Force must comply with the Air Force Rules of Professional 
Responsibility and the Air Force Standards for the Administration of 
Criminal Justice. Additionally, I'm informed JAG Department attorneys 
may request an ethics opinion from the office of The Judge Advocate 
General's Ethics (Professional Responsibility) Advisor in the Legal 
Assistance Division.
         role in the officer promotion and confirmation process
    Question. In your view, what is the role of the General Counsel of 
the Department of the Air Force in ensuring the integrity of the 
officer promotion process?
    Answer. I am informed that the General Counsel's Office provides 
legal advice on officer promotion procedures and the processing of 
selection board reports. This includes review of the Secretary's 
Memorandum of Instructions to each selection board and of each 
selection board report. In addition, the General Counsel, acting for 
the Secretary, reviews reports of substantiated unfavorable information 
concerning senior officers to determine whether that information should 
be made available to selection boards. The Air Force Office of the 
General Counsel takes an active role to ensure that promotions are made 
in full compliance with law and Department of Defense guidance. If 
confirmed, it would be my intention, subject to the Secretary's 
direction, to continue this level of legal oversight of the officer 
promotion process, in close cooperation and coordination with the 
uniformed Air Force legal and personnel communities.
    Question. What is the role of the General Counsel of the Department 
of the Air Force in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. The current Air Force practice, which I would expect to 
continue if confirmed, is for the General Counsel to review each 
selection board report, and each Departmental communication to the 
committee, the President, or the Secretary of Defense, concerning 
nominations, for consistency and compliance with law and regulation. 
This review is particularly important in cases of nominees against whom 
there have been findings of misconduct or improprieties, to ensure that 
the Air Force meets its obligations of full and meaningful disclosure. 
In addition, if confirmed, I would expect to continue the present 
practice of the General Counsel reviewing each Lieutenant General and 
General nominees' financial disclosure reports and related financial 
information to ensure there are no conflicts of interest.
             litigation involving the department of defense
    Question. What is your understanding of the appropriate role of the 
Article III courts in the review of military activities?
    Answer. I understand both the Constitution and the Supreme Court 
provide that the principle authority to control the military rests with 
Congress and the President. I also understand a long line of court 
cases have held that many internal military decisions are not subject 
to judicial review, and that Article III courts are generally ill-
suited for defining or limiting the power of the executive and 
legislative branches as to military matters. In those categories of 
cases in which judicial review of military activities is appropriate, 
the courts should give substantial deference to the decisions of 
Congress and the President.
    Question. In your opinion, what is the relationship between the 
Department of Defense and the Department of Justice with respect to 
litigation involving the Department of Defense?
    Answer. According to Title 28, United States Code, section 516, the 
Justice Department has the responsibility to represent the Air Force in 
all litigation matters other than courts martial. Consistent with the 
statute, Department of Air Force lawyers work with Justice Department 
attorneys performing key roles to help advance the Department's legal 
interests. For example Air Force attorneys review pleadings, 
participate in discovery, assist in developing litigation strategy, and 
in some cases become a part of the trial team. As a former Justice 
Department attorney, I look forward to sustaining a superb relationship 
between the two Departments, if confirmed.
    Question. Is the present arrangement satisfactory, or does the 
Department need more independence to conduct its own litigation?
    Answer. I am not currently aware of any problems in the present 
arrangement, or of the need for greater independence for the 
Department. If confirmed, I will make inquiry on this issue and take 
steps to ensure the Department exercises appropriate independence.
                       court of appeals decision
    Question. On January 4, 2000, the United States Court of Appeals 
for the District of Columbia Circuit decided the case of National 
Center for Manufacturing Sciences v. Department of Defense, 199 F. 3d 
507 (D.C. Cir. 2000). The court concluded that ``Because of the 
existence of 10 U.S.C. Section 114, it is clear that any monies 
appropriated for NCMS by Congress for research must be authorized 
before they can be appropriated and distributed''; and ``Because 10 
U.S.C. Section 114(a)(2) requires authorization of these funds before 
they become available, appropriation alone is insufficient.''
    What is your view of the court's decision in this case and its 
implications regarding the obligation of funds that are appropriated, 
but not authorized?
    Answer. As I understand it, the case did not squarely address the 
issue of whether Department of Defense appropriations must be 
authorized before they can be obligated or expended. The court and the 
parties both viewed the funds at issue as authorized by Congress, and 
so this was merely a collateral matter in a case that concerned whether 
funds earmarked for NCMS in fiscal year 1994 had been effectively 
rescinded by a later act of Congress. If confirmed, I will work closely 
with the Defense Committees if similar issues arise.
                          environmental issues
    Question. The military departments have endeavored to resolve 
environmental encroachment issues while fulfilling essential readiness 
requirements, however, these efforts have often resulted in diminished, 
less realistic training. Based on testimony provided by the services at 
the Readiness Subcommittee hearing on March 20, 2001, it appears that 
the time is ripe for the development and implementation of a 
comprehensive strategy that addresses the individual and the cumulative 
effects of environmental encroachment. In the current threat 
environment, it is critical that such a strategy ensure the 
preservation of quality military training. Such efforts will require 
sound legal advice and recommendations.
    If confirmed as the Air Force General Counsel, how would you 
propose to facilitate and contribute to the development and 
implementation of a comprehensive strategy intended to address 
readiness concerns related to environmental encroachment issues?
    Answer. National defense is our primary mission, and that mission 
can accommodate wise natural resource stewardship. Maintaining 
continued access to ranges and airspace is absolutely critical to 
readiness. If confirmed, I will have the opportunity to apply over 20 
years of experience in the environmental law field to this important 
national issue. I will assist the Department in balancing test and 
training requirements with responsible stewardship. Strong 
relationships with the U.S. Department of Interior, its state 
counterparts and other interested parties are of great importance. 
Effective communication will serve to both provide access to critical 
airspace and ranges and ensure that others understand that realistic 
training is necessary for our Nation's security.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Air Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Strom Thurmond
                       attracting quality people
    1. Senator Thurmond. Ms. Walker, a key issue facing the Department 
of Defense is recruiting and retaining quality people to manage and 
carry out the functions of the Department.
    What will be your approach to ensuring that the Office of the Air 
Force General Counsel has the quality people to ensure the Secretary 
and the Department has the best and brightest lawyers and employees?
    Ms. Walker. If confirmed, I will work diligently to ensure 
continued successful recruiting and retention of outstanding attorneys, 
paraprofessionals and support personnel for the Office of the Air Force 
General Counsel. Further, I would work to ensure we have the right 
number of people and depth of expertise to provide the high quality 
legal support the Department requires. I support the use of intern 
programs as a way of developing entry-level candidates. Additionally, 
while we may never expect to compete with private sector salaries, it 
is essential that we fund and utilize fully the authorities we have 
currently to repay student loans, offer recruiting and retention 
incentives, and enhance training opportunities. If confirmed, I want to 
make service as a civilian attorney in the Air Force as attractive and 
professionally rewarding as I possibly can. I would seek to assure that 
our attorneys and support personnel have many opportunities to 
participate in career development activities, including but not limited 
to formal Continuing Legal Education (CLE) programs, job skill 
seminars, and conferences. I am informed some steps have already been 
taken to initiate a formal career-broadening program to enhance the 
attorneys' experience and better prepare them for promotion, including 
exchanges with other offices. These are the types of initiatives I 
would support as we look for ways to secure and retain the ``best and 
the brightest'' for the Department.
                                 ______
                                 
    [The nomination reference of Mary L. Walker follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 25, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Mary L. Walker, of California, to be General Counsel of the 
Department of the Air Force, vice Jeh Charles Johnson.
                                 ______
                                 
    [The biographical sketch of Mary L. Walker, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Mary L. Walker
    Mary Walker is a lawyer from California and former partner with 
Brobeck, Phleger & Harrison LLP, a national law firm based in San 
Francisco. She specializes in land use and environmental law and 
litigation and has represented a diverse range of clients including 
those in oil, shipbuilding, transportation, manufacturing, high 
technology, biotechnology, fisheries, food, land development, and 
municipal government.
    She has served on the boards of several nonprofit organizations, 
including BIOCOM/San Diego, Floresta, Inc., Global Involvement Through 
Education, and the Endowment for Community Leadership. She is a 
frequent author of opinion pieces on environmental regulation, energy 
policy, and nuclear power and waste.
    In the 1980s, Ms. Walker served the Federal Government in several 
positions, including Assistant Secretary for Environment, Safety & 
Health of the Department of Energy, Deputy Solicitor of the Department 
of Interior, Principal Deputy Assistant Attorney General of the Land & 
Natural Resources Division of the Department of Justice, and U.S. 
Commissioner for the Inter American Tropical Tuna Commission.
    Ms. Walker has an undergraduate degree in Biological Sciences/
Ecology from the University of California at Berkeley, and a law degree 
from Boston University Law School.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mary Walker in 
connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Mary L. Walker.
    Mary Walker Lilly (1988/1989).

    2. Position to which nominated:
    General Counsel, U.S. Air Force.

    3. Date of nomination:
    September 25, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 1, 1948; Dayton, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    Winston Samuel Walker, age 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Glendale High School, Diploma 6/66.
    UC Irvine, 9/66-6/68.
    UC Berkeley, B.S. Biology/Ecology 6/70.
    Boston University Law School 9/70-6/72, JD 6/73.
    UCLA Law School (Visiting third year student) 9/72-6/73.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
                           1991-1994--partner
    Luce, Forward, Hamilton & Scripps LLP San Diego, CA.
    Specialized in environmental and land use law and litigation for 
diverse clients including landowners, manufacturers, biotechnology and 
other businesses.
    Defended Federal and state enforcement actions, counseled clients 
on compliance with laws and regulations, performed due diligence in 
mergers and acquisitions, designed and supervised environmental audits, 
and brought cost recovery actions under Federal and state Superfund 
laws for clean up of contaminated sites.
                          1994-7/2001--partner
    Brobeck, Phleger & Harrison LLP San Diego, CA.
    Specialized in environmental law and litigation for diverse clients 
including oil, shipyards, fisheries, high technology, biotechnology, 
pharmaceuticals and small businesses. This has included litigation 
(both defense and plaintiff work) and counseling concerning air, water, 
waste, natural resource and consumer warning laws and regulations, as 
well as due diligence, negotiations and drafting of merger and 
acquisition agreements. Representation of biotechnology industry has 
included advocacy in favor of changes to laws and regulations at the 
state and local level.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
                           federal government
    1988-1995--U.S. Commissioner, Inter American Tropical Tuna 
Commission (IATTC).
    1985-1988--Assistant Secretary, Environment, Safety & Health U.S. 
Department of Energy.
    1984-1985--Deputy Solicitor, U.S. Department of Interior.
    1982-1984--Principal Deputy Assistant Attorney General, Land & 
Natural Resources Division.
                            local government
    2000-3/2001--Board Member, Public Facilities Financing Authority 
City of San Diego (Mayoral appointment).
    1989--7/2001--Special Environmental Counsel for various southern 
California municipal. In recent years, this has been limited to Federal 
Superfund related actions.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    As a partner: Brobeck, Phleger & Harrison LLP.
    As a director/officer: BIOCOM San Diego (Director and Co-Chair, 
Environmental Committee). Endowment for Community Leadership 
(Director). Professional Women's Fellowship (Director and Past 
President).
    As an advisor: Floresta (Advisory Board). Global Involvement 
Through Education (advisory Board). UCSD Environmental Management Board 
(has not met in recent years).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    California Bar Association.
    San Diego Bar Association.
    The Federalist Society.
    Lawyers for Bush Cheney.
    The Heritage Foundation.
    BIOCOM San Diego (Board member, Co-Chair Environmental Committee).
    Industrial Environmental Association.
    Professional Women's Fellowship of San Diego (past President).
    Solana Beach Presbyterian Church.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Lawyers for Bush/Cheney.
    Volunteer, San Diego County Republican Party (volunteer assistance 
to Bush/Cheney campaign).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
                          figures approximate
    $1,000.00 George W. Bush.
    $500.00 Republican Congressional Caucus.
    $500.00 Congressman Duke Cunningham.
    $500.00 Congressman Brian Bilbray.
    $150.00 Mayor Susan Golding.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    College/Law School Scholarships.
    Secretary's Gold Medal, U.S. Department of Energy, 1987.
    Outstanding Young Women of America, 1984.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written. 
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have moderated panels on biotechnology environmental issues for 
the Industrial Environmental Association's annual conference for the 
past several years. I had no formal remarks. In addition, I have 
moderated other panels at environmental seminars. When I speak on 
environmental regulatory topics, such as the Clean Water Act, 
California's Proposition 65, emergency planning, environmental audits, 
Federal Environmental enforcement, the Federal and State hazardous 
waste laws, and an overview of Federal environmental laws, I typically 
speak from handwritten notes or overhead slides and have no prepared 
text. The only time I have worked from prepared texts was when I was in 
full time positions with the Federal Government (1982-1988).

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   Mary Walker.
    This 28th day of September, 2001.

    [The nomination of Mary L. Walker was reported to the 
Senate by Chairman Levin on November 8, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 8, 2001.]

 
NOMINATIONS OF JOSEPH E. SCHMITZ TO BE INSPECTOR GENERAL, DEPARTMENT OF 
 DEFENSE; AND SANDRA L. PACK TO BE ASSISTANT SECRETARY OF THE ARMY FOR 
                  FINANCIAL MANAGEMENT AND COMPTROLLER

                              ----------                              


                       TUESDAY, OCTOBER 23, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:32 p.m. in room 
SC-5, The Capitol, Senator Carl Levin (chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Carnahan, Warner, Allard, and Sessions.
    Committee staff members present: David L. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Peter K. Levine, General 
Counsel; and Michael J. McCord, Professional Staff Member.
    Minority staff members present: Romie L. Brownlee, 
Republican staff director; Judith A. Ansley, deputy staff 
director for the minority; Ambrose R. Hock, professional staff 
member; Scott W. Stucky, minority counsel; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Gabriella Eisen and Thomas C. 
Moore.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Erik Raven, assistant to Senator 
Byrd; Frederick M. Downey, assistant to Senator Lieberman; 
Andrew Vanlandingham, assistant to Senator Cleland; Elizabeth 
King, assistant to Senator Reed; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Neal Orringer, assistant to Senator Carnahan; Margaret 
Hemenway, assistant to Senator Smith; John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Douglas Flanders, assistant to Senator 
Allard; James P. Dohoney, Jr., assistant to Senator Hutchinson; 
Arch Galloway II, assistant to Senator Sessions; and Derek 
Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee meets today to consider the 
nominations of two individuals to senior positions in the 
Department of Defense, Joseph Schmitz to be Inspector General 
for the Department, and Sandra Pack to be Assistant Secretary 
of the Army for Financial Management and Comptroller.
    I would like to welcome you both and your families to the 
Armed Services Committee. In a moment, I am going to ask you to 
introduce those family members that might be with you. Before I 
do that, though, let me make a statement about our schedule for 
the rest of the week. On Thursday morning at 10 a.m. we hope to 
have a conference meeting with the House, and that meeting will 
involve the General Provisions Panel which Senator Warner and I 
chair. We do not have a room for that meeting yet, so keep in 
touch with your staffs about that.
    Also on Thursday morning, the Emerging Threats and 
Capabilities Subcommittee is planning a hearing with Senator 
Sam Nunn and former Deputy Secretary of Defense John Hamre on 
the recent Dark Winter exercise involving a simulated 
bioterrorist event. That hearing is currently scheduled for 10 
a.m. in Russell 222. That assumes, of course, that the Russell 
Building is open on Thursday afternoon.
    At 2:30 p.m., the full committee will hold a hearing with 
DOD officials on the Department's role in homeland security. We 
are currently scheduled to hold this hearing in Hart 216, which 
we may have to change. In fact, I think we should get a backup 
just in case we do have to change.
    On Friday morning at 10 a.m. we hope to have a meeting of 
the full conference with the House outside conferees. We do not 
have a room for that meeting yet, either. Scheduling is 
obviously a huge challenge under the current circumstances, and 
we will make every effort to keep all members of the committee 
informed about the committee schedule as promptly as we can.
    Senator Warner. Mr. Chairman, on that point would you 
instruct the staff to disseminate the facts you have just given 
to all members as soon as possible?
    Chairman Levin. We will. Thank you for that suggestion.
    Mr. Schmitz is a graduate of the U.S. Naval Academy, a 27-
year Navy veteran of the Active and Reserve Force. He served as 
a Special Assistant for Attorney General Edwin Meese. A lawyer 
and a captain in the Naval Reserves, he most recently served as 
Deputy Senior Inspector for the Naval Reserve Intelligence 
Program. If confirmed as the Inspector General, Mr. Schmitz 
will be responsible for conducting independent and objective 
audits and investigations of defense programs and impartial 
investigations of the allegations of misconduct by senior 
officers and civilian Department employees.
    Ms. Pack is a certified public accountant who has served as 
a financial consultant to several presidential campaigns. Her 
private sector experience includes serving as Director for 
Planning and Operations for the digital technology firm of 
Spectrum Holobyte, and 12 years with Ernst & Young, including 
Director of Microcomputer Consulting and Accounting Services. 
If confirmed as the Assistant Secretary of the Army for 
Financial Management and Comptroller, Ms. Pack will be 
responsible for assuring the effective management, integrity, 
and accuracy of the Army's financial management systems.
    Let me turn now to Senator Warner, and then I will ask the 
standard questions of our nominees and ask them to introduce 
their family members.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I asked that you 
arrange this hearing this afternoon because I think it is very 
important for this committee to be as active as we have been, 
and we have been active during the course of these 
unpredictable and somewhat uncertain times here in the Senate. 
I thank you for making the arrangements to have the hearing 
this afternoon. These nominees are urgently needed by the 
Department. I have been contacted by a number of members of the 
Department on behalf of both of these distinguished nominees. 
You have covered their curriculum vitae.
    I then would put in my statement for the record. My 
statement in every respect parallels the chairman's in 
endorsing these two candidates. I welcome you, and I thank you 
for your offer to serve the country, and that of your 
respective families, because families play a vital role in the 
lives of persons who undertake long hours and arduous 
challenges in the Department of Defense.
    Thank you very much.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I also extend a warm welcome to the nominees and their families. 
These are vitally important positions to which Mr. Schmitz and Ms. Pack 
have been nominated. I compliment them both on their desire and 
willingness to serve in these extraordinarily challenging times.
    Mr. Schmitz has an impressive record of accomplishment in military 
service, in the legal community, and in academia. After graduating from 
the U.S. Naval Academy in 1978, Mr. Schmitz forged a 27-year naval 
career in the Active and Reserve Forces, achieving the rank of captain. 
Since 1999, he served as Deputy Senior Inspector for the Naval Reserve 
Intelligence Program with responsibility for command inspections and 
audits, investigation, and intelligence oversight in this key area. He 
has also been a highly successful private practitioner in Washington, 
DC, specializing in administrative and constitutional law and 
international trade. In addition, he has served as an Adjunct Professor 
of Law at the Georgetown University Law Center.
    Ms. Pack is a certified public accountant with a distinguished 
record of achievement in the private sector. She worked for the firm of 
Ernst & Young for 12 years providing consulting and accounting services 
to small businesses in a broad range of industries. In recent years, 
she has served in financial management capacities in connection with 
the election campaigns of President Bush and Senator Bob Dole.
    I support the nominations of both individuals and look forward to 
their testimony this morning.

    Chairman Levin. Thank you, Senator Warner.
    Today's nominees have both responded to the committee's 
prehearing policy questions and to our standard questionnaire. 
Without objection, responses will be made a part of the record.
    The committee has also received the required paperwork on 
each of the nominees, and we will be reviewing their paperwork 
to make sure it is in accordance with the committee's 
requirements. There are several standard questions that we ask 
every nominee who comes before this committee. In your response 
to advance policy questions, you agree to appear as a witness 
before congressional committees when called, and to ensure that 
briefings, testimony, and other communications are provided to 
Congress. You have already done that. Now my questions: Have 
you adhered to applicable laws and regulations governing 
conflict of interest? Mr. Schmitz.
    Mr. Schmitz. Yes, I have.
    Chairman Levin. Ms. Pack.
    Ms. Pack. Yes, sir, I have.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process? Ms. Pack.
    Ms. Pack. No, sir.
    Chairman Levin. Mr. Schmitz.
    Mr. Schmitz. No, sir.
    Chairman Levin. Will you ensure the Department complies 
with deadlines established for requested communications, 
including prepared testimony and questions for the record in 
hearings? Mr. Schmitz.
    Mr. Schmitz. Yes, I will.
    Chairman Levin. Ms. Pack.
    Ms. Pack. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests? Ms. Pack.
    Ms. Pack. Yes.
    Mr. Schmitz. Yes, I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Mr. Schmitz. Yes, they will.
    Ms. Pack. Yes, sir.
    Chairman Levin. Let me now ask both of you for any opening 
remarks that you have, hopefully brief, but before you do that, 
would you introduce your families to us? Mr. Schmitz.
    Mr. Schmitz. Thank you, Mr. Chairman. My wife, Mollie, is 
here with me today; my mother, Mary Schmitz, is here; and six 
of my eight children could make it here today, Patrick, Thomas, 
Corporal Nicholas Schmitz, USMC, Katherine, Miss Mollie, and 
Matthias; my sister, Elizabeth, is there with three of her 
children; and then my cousin, Jennifer, who works for the 
Judiciary Committee, is here.
    Chairman Levin. We welcome them all. Are the two missing 
kids AWOL?
    Mr. Schmitz. The oldest is a senior at Maryland, and he has 
a midterm at 3:30 p.m. today--he would have been here this 
morning--and the number two son is a year abroad in Europe.
    Chairman Levin. Well, tell them we miss them.
    Senator Warner. Mr. Schmitz, don't you have a brother also 
in Government service who has had a distinguished career?
    Mr. Schmitz. My older brother John was George Bush's Deputy 
Counsel at the White House for 7 years. He is also in Europe on 
business.
    Senator Warner. I have met him in years past, a very 
distinguished gentleman.
    Chairman Levin. Ms. Pack, you are a little bit overwhelmed, 
probably, numerically.
    Ms. Pack. That is quite all right. I would like to 
introduce my husband, Randall.
    Chairman Levin. We very much welcome all of you, and thank 
you for your willingness to be supportive of the spouses who 
are called to public service. Those of us who serve on this 
committee understand the important role of spouses, and we very 
much appreciate and cherish that. It is absolutely essential to 
the well-being of this country that we have families, not just 
spouses but families as well as spouses, who will join their 
father or mother, brother, sister, what-have-you, to serve this 
country.
    Now, we will have brief opening statements, and we will put 
your full statement, if you have a longer one, in the record.
    Mr. Schmitz.

    STATEMENT OF JOSEPH E. SCHMITZ, NOMINEE TO BE INSPECTOR 
                 GENERAL, DEPARTMENT OF DEFENSE

    Mr. Schmitz. Thank you, Mr. Chairman. I have no statement 
for the record, but with your permission I would like to make a 
few brief remarks.
    Chairman Levin, Senator Warner, members of the committee, 
it is an honor to appear this afternoon before you as President 
Bush's nominee to be the Inspector General of the Department of 
Defense. I would like to thank President Bush for nominating 
me, and I would like to thank Secretary Rumsfeld for his 
continuing confidence and support.
    I would also like to thank this committee for all it has 
done over the years, especially over the last 6 weeks, for the 
men and women of the Armed Forces. If confirmed, I look forward 
to working very closely with this committee to meet the many 
and recently exacerbated challenges we face as a Nation.
    As stated in my written responses to your advance policy 
questions, if I am confirmed, I hope to address the following 
three broad priorities within the Office of Inspector General, 
Department of Defense: first and foremost, integrity; second, 
efficiency; and third, an enthusiastic commitment to the core 
principles underlying our Constitution, including the rule of 
law, the various checks and balances, and the ultimate 
accountability of all public officials to the people of the 
United States.
    Finally, I would like to thank Almighty God for the 
multitude of blessings he continues to bestow upon this Nation, 
and upon me personally. Speaking of which I would like to thank 
publicly my wife of 23 years, Mollie, who you just met, and my 
eight children for their enduring love and inspiration, and now 
for their willingness to support me as I undertake this new 
challenge. Of course I would like to thank my other many family 
members and friends who have supported me along the way.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Ms. Pack.

STATEMENT OF SANDRA L. PACK, NOMINEE TO BE ASSISTANT SECRETARY 
      OF THE ARMY FOR FINANCIAL MANAGEMENT AND COMPTROLLER

    Ms. Pack. Thank you, Mr. Chairman, distinguished members of 
the committee. It is a great privilege to appear before this 
committee as the nominee for Assistant Secretary of the Army 
for Financial Management and Comptroller. I am profoundly 
grateful to the President, the Secretary of Defense, and the 
Secretary of the Army for the trust and confidence that they 
have placed in me.
    I pledge that, should I be confirmed, I will dedicate 
myself to ensuring that their trust and your trust will not be 
misplaced. I pledge to be a faithful steward to the citizens of 
this great Nation, that I will discharge my duties to the best 
of my ability.
    I am a certified public accountant. I have worked my entire 
professional career in the private sector, 12 of those years in 
public accounting. I believe strongly in the principles of 
sound financial management. I understand the need for the 
principles and practices espoused by my profession, such as 
strong internal controls, segregation of duties, planning, 
budgeting, and reliable accounting and financial reporting 
systems. These principles enable sound management and resource 
decisions.
    While I will be serving in a new environment with the U.S. 
Army, I believe that my technical training and my previous work 
experience will provide the foundation needed for this 
challenge. I look forward to learning about the Army and 
determining how the principles with which I am familiar may be 
applied.
    Mr. Chairman, should I be confirmed, I look forward to a 
strong working relationship with you and with this committee. I 
will be pleased to answer any questions at this time. Thank 
you.
    Chairman Levin. Thank you very much, Ms. Pack. We will have 
a 6-minute round, and we will follow the early bird rule, 
alternating between sides.
    Mr. Schmitz, I know that you are aware of the fact that the 
letter that you wrote to the Washington Times in 1992, during 
the presidential campaigns, has been something which has 
troubled me a great deal. That letter was captioned, ``Security 
Risk in the White House?'' This was printed in the Times: 
``Bill Clinton practically confessed to being a security risk 
during the Vietnam War in his December 3, 1969, letter to 
Colonel Eugene Holmes. Since then, he has never recanted, 
notwithstanding a direct invitation to do so in the final 
presidential debate. Colonel Holmes has released an affidavit 
stating, among other things, that the December 3, 1969 letter 
alone would have restricted Bill Clinton from ever qualifying 
to be an officer in the United States military.'' Then you 
wrote: ``Now the same Bill Clinton wants to be commander in 
chief, but he won't even talk about his organizing antiwar 
activities in England and then traveling to Moscow at the 
height of the Vietnam War. The KGB apparently knows more about 
the shady side of Bill Clinton than the American people ever 
will. The American people deserve better.''
    Now, that was signed with your rank in the Reserves, which 
is the issue here. It is not the views, whatever one thinks of 
those, but the fact that you signed it as a Lieutenant 
Commander in the U.S. Navy Reserve.
    First of all, did you believe that he was a security risk 
when you wrote that?
    Mr. Schmitz. No, sir.
    Chairman Levin. Do you believe that it was appropriate to 
sign the letter as Lieutenant Commander in the Naval Reserve?
    Mr. Schmitz. I just want to clarify one thing, the way that 
I signed it and the way that it was published are different, 
and the distinction is that the way I actually signed it 
followed the letter of the law. I certainly acknowledge that 
the way it looks raises issues, and I would like to address 
those to clarify why I did what I did, and how I did it.
    First of all, that was 9 years ago, Mr. Chairman. I was a 
young associate in a law firm and a Lieutenant Commander in the 
Naval Reserves. I have done a lot of professional growing since 
then, and I would not write the same letter today.
    Second, I would like to say the letter was merely a venting 
exercise. It was not a reflection of my judgment at the time, 
and it is certainly not a reflection of my judgment today.
    I had watched the nationally televised debate during which 
Candidate Clinton had been asked about his activities in Moscow 
during the height of the Vietnam War. I was hoping that the 
candidate would have answered the questions, but he did not. I 
decided to vent my frustration in a letter to the editor, a 
writing activity which my law firm generally encouraged, so I 
wrote a letter on private stationery and faxed it to the 
newspaper editor from my law firm. It was clearly my own 
opinion, and it was not intended to be a reflection on the 
Naval Reserves.
    Finally, one of the most important leadership lessons I 
have learned over the years has been that leaders need to be 
able to admit when they have made a mistake, especially when 
they are under public scrutiny. In the case of this one letter 
to the editor, Mr. Chairman, 9 years ago, I should not have 
used my Naval Reserve rank, even though I followed the rules to 
the T.
    The way the newspaper published my letter and highlighted 
my military rank obviously raises issues. I regretted it at the 
time, and I regret it today. I learned a very good lesson, for 
which I am now a better man, and more importantly I will be a 
much better Inspector General for having learned that lesson, 
if I am confirmed.
    Chairman Levin. Were you with the same law firm then as you 
are now?
    Mr. Schmitz. No, sir.
    Chairman Levin. Was it the firm you were with then that 
encouraged you to write the letter?
    Mr. Schmitz. Paul, Hastings, Jonofsky, and Walker, and if 
you look at the cover sheet, it was the code that they give to 
associates to encourage them to spend time writing letters like 
this.
    Chairman Levin. Was there anyone else that encouraged you 
to write this, other than the law firm?
    Mr. Schmitz. The law firm did not encourage me to write 
this specific letter. Let me just clarify that. This was a 
weekend venting exercise. That is all it was.
    Chairman Levin. But in general they encouraged people to 
write letters?
    Mr. Schmitz. Yes, sir.
    Chairman Levin. Was there anyone else who encouraged you to 
write either letters in general, or this letter, other than the 
law firm?
    Mr. Schmitz. My mentor in the law firm, basically all of my 
supervisors.
    Chairman Levin. I said, other than the law firm, was there 
anyone else that encouraged you to write letters, or this 
letter?
    Mr. Schmitz. Not that I recall.
    Chairman Levin. In your response to the committee's 
questionnaire, you indicated your desire to remain a member of 
the board of U.S. English, Inc., which is an advocacy group 
that seeks to ensure that the official business of the United 
States and the 50 States is conducted only in English. Even for 
positions that do not require the independence and objectivity 
of the Inspector General, the committee insists that nominees 
resign from outside positions. That I think you now understand, 
and you are going to resign from that board, but my question is 
a little different than that.
    This is an organization that believes that no Government 
business should be done in any language other than English, 
which presumably means they do not believe that ballots should 
be in any other language, or referenda on ballots should be in 
Spanish, or that driver's license applications should be in 
Spanish. Many States have such applications and ballots.
    Why would you think it would be appropriate for you, as 
Inspector General, to remain on the board of an advocacy group 
that obviously takes positions which would be very much 
anathema to at least some members of the military, who would 
very much support a ballot being in Spanish, for instance, or a 
driver's license application being in Spanish?
    We have a lot of military members, for instance, who speak 
Spanish. I am not characterizing them, or generalizing. I am 
not saying that all people who speak Spanish believe that there 
ought to be driver's license applications or ballot referendum 
items that are bilingual. I am not suggesting that, but clearly 
there is a significant number of people that speak a foreign 
language that believe that. They are in the military, like 
anywhere else in this country, and yet you thought it would be 
appropriate for you to remain on that board.
    Now, putting aside the fact that you cannot, under our 
rules, and that you are not going to be on that board, why 
would you think it would even be appropriate to stay on that 
board if we allowed you to do so?
    Mr. Schmitz. That is a good question, Mr. Chairman. The 
first thing I would like to clarify is that the way you 
characterized the mission and purpose of the organization is a 
common misconception. There is a group that advocates English 
only. This is not the English-only group. This is the official 
English group. In fact, the founder of this group was a former 
U.S. Senator by the name of Sam Hayakawa, who himself was an 
immigrant. The current chairman of the group is an immigrant 
from South America whose native tongue is Spanish. There is 
nothing anti-Spanish or anti-immigrant about this group. It is 
often confused, however, with the English-only group, and that 
is what I would like to address right now.
    In fact, when I went through the Army Inspector General's 
School I had the occasion of studying a lot of Army 
regulations, and I was not surprised, but I was pleased to find 
that in 1999 the U.S. Army promulgated its command policy in 
which it states that English is the operational language of the 
United States Army, and then it goes on and says that we all 
have to speak English to communicate, but commanders should not 
deny people the opportunity to speak their native tongues. That 
is essentially the position that U.S. English takes. It is the 
exact same position that the U.S. Army took in 1999 under its 
official command policy.
    I have been working with U.S. English for 2 years. It is a 
tremendous challenge, frankly, to dispel the misconception and 
the misinformation that U.S. English is up against, and I 
requested to stay a member of that board, and I requested to 
stay a member of a couple of other boards that I thought would 
be appropriate. I am pleased to dispel the misperception about 
U.S. English here, and I have already agreed to withdraw from 
the board of U.S. English.
    [The information referred to follows:]

  Army Command Policy (Personnel-General), Army Regulation 600-20, 15 
                               July 1999

                   SECTION 4-13. ARMY LANGUAGE POLICY

    English is the operational language of the Army. Soldiers 
must maintain sufficient proficiency in English to perform 
their military duties. Their operational communications must be 
understood by everyone who has an official need to know their 
content, and therefore, must normally be English. However, 
commanders may not require soldiers to use English unless such 
use is clearly necessary and proper for the performance of 
military functions. Accordingly, commanders may not require the 
use of English for personal communications which are unrelated 
to military functions.

    Chairman Levin. I am going to put in the record here the 
web site material that U.S. English, Inc. has on its web site, 
which shows driver's license exam languages in the States. 
Presumably the only reason they would put that on their web 
site is that they have a problem with it.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Levin. Why else would they put driver's license 
exams on their web site unless they had a problem with them? 
For instance, California has many different languages for 
license exams. My home State of Michigan has 20 different 
languages for applications for driver's licenses, starting with 
Arabic and Spanish, Chinese and English, Finnish, and French. 
Why are all of those facts put on the web site if it is only 
what you say it is?
    Mr. Schmitz. You could also find on the web site the fact 
that there are 350-plus references in the United States Code 
and in the Code of Federal Regulations requiring English 
language. It is just a practical issue. If you want to succeed 
in the United States, you ought to learn English. It does not 
say you should not keep your mother tongue.
    The driver's license exam came up in a U.S. English trial 
in January, and it is often raised as an issue, as why 
shouldn't people be able to drive, and U.S. English's position 
is just a practical issue: we want to encourage people to learn 
English. That is the simple point. It is the same reason the 
U.S. Army has the policy, sir.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Ms. Pack, traditionally financial managers 
have focused on looking at waste, fraud, and Government abuse 
operations. Recently greater emphasis has been placed on 
overseeing the financial aspects of regular operations of the 
military departments.
    If confirmed, where do you anticipate you will focus your 
attention in overseeing the financial operations of the 
Department of the Army? What do you envision will be your 
greatest challenge in combatting the waste, fraud, and abuse 
that exists to some degree in all military departments, as it 
does throughout government and indeed the private sector? Every 
new administration, to their credit, initiates their own means 
to try and limit it. I think our distinguished President and 
Secretary of Defense and his team are doing their very best, 
and you are going to join that team. I hope you will apply your 
efforts on this, because every dollar that is lost is a dollar 
that is deprived of the men and women in uniform in our Armed 
Forces.
    Ms. Pack. Senator, I share your concern on that. I am not 
certain at this point where the challenges will lie, exactly, 
or what systems or approaches I might devise to correct this, 
but I am eager to do my part in this, and I will make this a 
priority, should I be confirmed.
    Senator Warner. In your previous distinguished record of 
achievements in the private sector I expect you have had some 
experience in trying to do that, have you not?
    Ms. Pack. Absolutely, sir.
    Senator Warner. Based on that experience, hopefully you can 
bring it to bear on the problems that are extant in the 
Department of the Army.
    Ms. Pack. I commit to bringing all of my experience to bear 
where needed, sir.
    Senator Warner. Thank you very much.
    Mr. Schmitz, in the answers you provided to the committee 
to the advance policy questions you acknowledge confidence in 
the integrity of the Office of Inspector General. That office 
was shaken earlier this year by findings that falsified 
information had been included by DODIG employees in an agency 
peer review process of previously completed investigations. Are 
you familiar with that?
    Mr. Schmitz. I am familiar with the allegations, yes, sir.
    Senator Warner. What steps will you take, if confirmed, to 
restore the integrity of the Office of Inspector General?
    Mr. Schmitz. Senator Warner, I am not familiar with all of 
the facts underlying those allegations.
    Senator Warner. I would not expect you to be.
    Mr. Schmitz. The first thing I would want to do, if 
confirmed, is to review exactly what has been done to ascertain 
what the facts are. I have read in the paper, and I understand 
that at least three of those individuals against whom the 
allegations were made have since resigned. I understand that 
there are another dozen or so that might have been implicated, 
so I would want to really do a thorough internal review to find 
out what the facts were, and then I would have to gauge how to 
move forward from there. I have indicated in my advance policy 
questions that would be a top priority, if I am confirmed, to 
get to the bottom of it.
    Senator Warner. I find that response very satisfactory, and 
I commend you for that approach, because I am concerned about 
it, and we on this committee are also.
    Now, back to you, Ms. Pack. This is surprising, but it was 
brought out by a distinguished member of our committee in a 
hearing with the Secretary of Defense when he appeared before 
us sometime ago with regard to his qualifications to be 
Secretary of Defense, and his objectives. Our distinguished 
senior colleague, the President Pro Tempore of the Senate, 
Robert C. Byrd, asked a question about unaccounted funds that 
still have not been accounted for in the Department of Defense. 
Now, the Department of the Army, like various other DOD 
organizations, has been unable to adequately account for 
financial expenditures and transactions in several key areas.
    This is very troublesome to Congress as well as the public, 
and it is my hope that you will do your best to bring your 
expertise to address this issue. I wonder if you have had an 
opportunity to determine whether or not the problem of 
unaccounted funds expenditures can be attributed to obsolete or 
nonexistent financial accounting systems in the Department of 
the Army?
    Ms. Pack. Senator, I have been receiving briefings from the 
Army, and my information is limited at this point, but it is my 
understanding that the underlying systems are a big factor in 
this problem. I am not prepared to express an opinion on this 
at this point, but this is something that definitely would be a 
priority, and something that definitely needs to be corrected. 
In addition, I would say that Secretary White has expressed to 
me his concern about this, and that this is a priority for him 
as well.
    Senator Warner. It is extremely important that you direct 
your immediate attention to trying to resolve that problem. My 
time is up. I will return for a second round.
    Senator Reed [presiding]. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Ms. Pack, Mr. 
Schmitz, thank you for your willingness to serve.
    Let us pick up, Ms. Pack, on what Senator Warner was 
talking about. I was struck by the questions that Senator Byrd 
asked the Secretary as well, and it seems to me one of the main 
reasons that the Department has been unable to account for all 
funds. In fact, since the enactment of the Chief Financial 
Officer's Act which comes out of the Senate Governmental 
Affairs Committee, which I serve on and am privileged to chair, 
the Department has not produced a clean financial statement. As 
you would know from your prior experience, part of the problem 
is that the systems are antiquated and they do not talk to each 
other, and that problem is further compounded by the hundreds 
of so-called feeder systems within the Department which provide 
critical inputs. I appreciate your intention to focus in on 
this, and I hope you will feel free to return to us if you find 
that you do not have the necessary authority, particularly to 
address problems within those feeder systems that will affect 
your capacity to financially manage the Army so that it is up 
to the standards that I am sure you achieved in private 
practice.
    I do have one question about a very different point. As you 
probably know, Congress and the administrations have always 
insisted on full funding of Department of Defense weapons 
systems, which means we put the full cost of a system in the 
budget at the time we decide to buy it, even though the costs 
are going to be incurred over a period of several years.
    I wonder if you have had enough time to look at a matter 
like this to offer an opinion as to whether you think it might 
be feasible to go over to some sort of incremental system of 
funding procurement of new weapons systems.
    Ms. Pack. Senator, there are various methods of budgeting, 
and there are tradeoffs with each of these, and I would say 
that this is something that is important, and that needs to be 
explored. How it will be applied within this context I really 
could not say without more information, but it is something 
that I would certainly want to review, and I would definitely 
feel comfortable in reappearing or reporting back if I find 
that the resources are not adequate to do the job, should I be 
confirmed.
    Senator Lieberman. Fine. I hope you will feel that the 
lines of communication are open.
    Interestingly the Inspectors General also come under my 
other committee, Mr. Schmitz, and so I have a real interest in 
them. I am proud of the work that they do, and I wanted to ask 
you generally for this Department, which is so large, what 
kinds of priorities would you bring to the position of 
Inspector General of the Department of Defense?
    Mr. Schmitz. Senator Lieberman, I addressed the priorities 
in my response. I would be glad to elaborate.
    Senator Lieberman. Why don't you talk about it a little 
bit.
    Mr. Schmitz. I would summarize real quickly. First and 
foremost, I believe we need to address generally the issue of 
integrity. In the scandal that Senator Warner mentioned, I 
sense there is a cloud over the office, and it goes to basic 
integrity. We need to address that, and we need to find out 
what caused this lapse, and we need to figure out how to avoid 
these types of lapses in the future.
    The second is efficiency. The Inspector Generals are all 
about waste, fraud, and abuse. We want to try to avoid those 
inefficiencies.
    Third is a priority that I have used in a leadership 
capacity over the years; it is reinforcing the facts that we 
take oaths to support the Constitution, we are officers of the 
Government, we are ultimately accountable to the people of the 
United States, and it is both a privilege and an obligation. I 
think it is useful to continuously remind our officials of that 
sacred obligation.
    Senator Lieberman. I appreciate your answer, obviously. I 
hope you will be relentless in pursuing your work. We are going 
to be faced with some real pressure to meet the needs of our 
military in the years ahead. To the extent you are able to 
advise us about efficiencies of achieving savings that we can 
apply more productively, we would welcome them.
    My time is up, but I do want to note for the record my 
pleasure at seeing in your background that you once clerked for 
Hon. James L. Buckley, a distinguished citizen of the State of 
Connecticut, and a member of a great Connecticut family that 
had some small part to play in the fact that I am sitting in 
this seat. A brother of the judge's whose name I will not 
mention here formed a group called Buck PAC in my first 
election, which was composed by his own description. This was 
Bill Buckley, open for membership to anyone in Connecticut 
named Buckley. [Laughter.]
    Thanks, Mr. Schmitz.
    Senator Reed. Thank you, Senator Lieberman.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. First of all I 
want to compliment you and the chairman of the Armed Services 
Committee for moving ahead with both of these confirmations, 
because these are important positions. These are positions that 
will put together facts and information that we need to know if 
we are going to be able to do our job, and so I am pleased you 
decided to move ahead.
    It is these kinds of fundamental positions that I think we 
need to fill just as quickly as we possibly can, because it 
means we are going to have more accountability, and I would 
like to thank you, Mr. Schmitz and Ms. Pack, for being willing 
to serve in these positions. Because of their importance, I 
think to Congress at times they do get controversial, and I 
would ask you, Mr. Schmitz, have you ever heard of the 
Government Performance and Results Act?
    Mr. Schmitz. Senator, I have not.
    Senator Allard. This is one of the things that Congress has 
implemented and begun to apply to the agencies, and I would ask 
that you become familiar with it, because what we do is, we 
encourage the agencies to set measurable goals and objectives 
and to then report back to Congress. It seems to me that 
perhaps some of the issues you talked about in answering the 
questions here would help you in managing the Inspector 
General's Office. You are the eyes and ears of Congress, the 
U.S. House of Representatives as well as the Senate. We do 
depend a lot on information that you provide us, and many of us 
here feel that is an important management tool.
    Then I would also ask Ms. Pack if she would share with us 
if she is familiar with the Government Performance and Results 
Act, and how she might apply that in her responsibilities.
    Ms. Pack. Senator, I have been briefed on this a little 
bit, and it strikes me that this could be characterized as 
sound business practices, which is one of the priorities that 
Secretary White testified that he would be interested in 
achieving. I am not sure exactly how I would apply it here, but 
I can tell you that I do believe in establishing performance 
standards and then measuring performance against those 
standards.
    Senator Allard. I would speak to both of you. What we are 
trying to do in the Government Performance and Results Act is 
put in measurable ways and your being an accountant, you know 
how to do that. There is the financial side and then there is 
the management side of how you do an audit and how you have 
accountability on that. The agencies have been rather reluctant 
to comply with this law, and there are very few that actually 
do. I think it is important as a Member of Congress, and I 
continue to push this. So you will probably hear from me from 
time to time to push these provisions because I think they are 
good common sense things.
    Lots of business managers utilize them. Companies and the 
agencies just simply have been reluctant to try and apply it, 
and like you mentioned in your comment, just good, common 
business sense, and again I would hope that both of you take a 
good look at those provisions and do what you can to get it to 
apply to your agencies and encourage more widespread use of 
that throughout the military.
    Again, there are really some special problems with that and 
how it applies. The military is going to require a lot of 
beyond-the-box thinking to get it to apply, but I think it can 
be made to apply, and I think for those of us who are strong 
supporters of the Defense Department and what your goals and 
objectives are, I would think it is one of the things that 
helps keep you out of trouble and makes it easier for us to do 
our job on your behalf. I see my time has expired. Thank you.
    Senator Reed. Thank you very much, Senator Allard.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman. I want to 
welcome our distinguished panel here today, and apologize 
somewhat for our temporary meeting space here, although there 
may be some benefit because the discomfort of the metal chairs 
may shorten the length of the questions.
    The next Inspector General will assume this post at a very 
pivotal time in our history. He will have to assess the 
Pentagon during a time when we will be promoting a war on 
terrorism. What do you believe will be the most challenging 
issues that face the next Inspector General?
    Mr. Schmitz. Senator, the Inspector General will have to 
face many of these same huge challenges the entire Department 
is facing in terms of transforming the United States Armed 
Forces into an organization that can combat enemies like 
terrorism, and that is a big transformation. That is not 
business as usual, and it requires thinking out-of-the-box, and 
it requires thoughtfulness and working together with this 
committee and with the leadership in the Pentagon to make sure 
we do it right.
    Senator Carnahan. As the next Inspector General, you would 
be responsible for promoting economy and efficiency within the 
Department as far as programs and operations go. The Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
greatly relies on the Inspector General's reports to make 
important acquisition decisions. Would you please describe your 
commitment to promoting acquisition reform, and what do you 
envision the Inspector General's role to be in supporting such 
initiatives?
    Mr. Schmitz. Senator, I am aware of acquisition reform that 
is ongoing, and I have met with the Under Secretary. I frankly 
have not had a chance to get into the details of exactly what 
reform involves, but I certainly understand and am committed to 
the mission of the Inspector General's Office to promote 
efficiency in the Department, so I just have not had a chance 
to get into the interstices of the reform yet.
    Senator Carnahan. One final question. In the event of an 
Inspector General investigation into alleged impropriety, I 
certainly believe that impartiality is very important. Would 
you discuss your commitment to such objectivity, especially in 
the cases that involve conflicting testimonies between victims 
and those that are accused of specific abuses?
    Mr. Schmitz. I have been practicing law for 15 years, and I 
am used to dealing with conflicting testimony. I often have to 
gather facts, and I have to make my own judgments. That is part 
of what a practicing attorney does on a day-to-day basis. I 
have a lot of experience in that, and frankly the good 
attorneys are the ones that are best at making the judgments, 
of weighing the conflicting evidence and coming up with the 
best strategy and moving forward with a case.
    I would anticipate utilizing my experience in that regard, 
and I am certainly committed to objectivity, and to what the 
Army likes to call the dogged pursuit of the truth.
    Senator Carnahan. Very good. Thank you very much.
    Senator Reed. Thank you, Senator Carnahan.
    Mr. Schmitz, when I was listening to your response to 
Senator Levin about the letter to the Washington Times, a 
question occurred to me. How did the Washington Times determine 
that you were a Lieutenant in the Navy Reserve?
    Mr. Schmitz. Senator, I was a lieutenant commander at the 
time, and when I signed the letter I indicated underneath my 
typed name LCDR, USNR-R, and the R is what is required under 
the letter of the law to indicate that you are not on active 
duty. That is why I mentioned I was following the letter of the 
law. You are allowed to use your Reserve title. You just have 
to make it clear that you are not representing the opinion of 
the Naval Reserve.
    Senator Reed. You deliberately chose to identify yourself 
as a naval officer. You could have easily identified yourself 
as a lawyer, as a member of the firm, in a number of ways.
    Mr. Schmitz. That is the lesson I learned, Senator.
    Senator Reed. What lesson?
    Mr. Schmitz. Mea culpa. That is the lesson I learned. I 
would not use my title like that again. Even though I am 
permitted under the ethics regulations, I would not do it 
again.
    Senator Reed. So we can assume that if a lieutenant 
commander in the Naval Reserve wrote a letter disparaging 
President Bush, or an elected official of the United States, 
your conclusion would be that was inappropriate conduct for a 
naval officer, Reserve or active?
    Mr. Schmitz. I would advise such a lieutenant commander not 
to do it, based on my own personal experience.
    Senator Reed. One of the difficult tasks of your proposed 
job, is, you have to do contradictory things. You have to have 
a rapport with the Secretary of Defense so that he trusts you 
as an advisor, but you also have to seek out information and 
investigate conditions which might be very embarrassing to the 
Department of Defense. I think you understand that, because you 
have experience. You have been trained.
    You also have to have, as you suggested in your opening 
testimony, an image of integrity, commitment to the service not 
deflected by partisanship or personal motives, one that 
everyone in the Department of Defense, from the Secretary down 
to E-1, would feel confident to come and confide in you, and 
one of the aspects that Senator Levin talked about was your 
participation in this English only movement.
    Now, I do not think we have to go over parsing what it does 
and what it does not represent, but it might suggest to many 
members in the military who are legitimately concerned about 
their status because their first language is not English, that 
you are not as sensitive to their concerns, or more sensitive 
to other concerns. That is something you are going to have to 
deal with as you go forward.
    But once again, I think--and I am eliciting an affirmative 
response--that you see this tension of having the ear of the 
Secretary but also seeking out information is one that will 
challenge you a great deal. Can you comment on that?
    Mr. Schmitz. Yes, Senator. I have been serving in the 
functional equivalent of an inspector general position for the 
last 2 years. Actually, my term just ended at the end of 
September. It is called the Deputy Senior Inspector only 
because in the Navy we do not have inspectors general going 
down that low, but on a number of occasions I have had to look 
into issues and report to the commander bad news. That comes 
with the territory. I am used to doing that. It is a difficult 
job to do sometimes, but that comes with the territory and I am 
prepared to do that.
    Senator Reed. Fine. Ms. Pack, you have an excellent 
financial and accounting management record extending over many 
years, but by your own admission, you know very little about 
the United States Army, which is an interesting world unto 
itself sometimes. What are you doing to rapidly get you up to 
speed to understand not only the jargon but the systems there?
    Ms. Pack. Senator, thank you for asking that question. The 
Army has plans for getting me up to speed, and I have already 
been receiving briefings, and will continue to, should I be 
confirmed. That also includes taking trips to installations and 
visiting soldiers, and I assure you I will do everything I can 
to get myself educated as quickly as possible. It is important 
to me in doing any job to understand what the people are facing 
in performing their jobs and their duties, so this obviously 
will be a priority, and it will be something that I will 
continue throughout the job, should I be confirmed.
    Senator Reed. Thank you. Again, another point, I think, and 
it is obvious but I will make it anyway and that is, your 
experience of the last several years has been somewhat partisan 
in nature, with your involvement in active electoral politics, 
which is your right--in fact, one would argue, duty of a 
citizen.
    You are going into a different world in which, particularly 
at this time where we are engaged in an all-out war against 
terrorists, where nonpartisan operation is the key, and I think 
you understand that.
    Ms. Pack. Absolutely, Senator.
    Senator Reed. Thank you very much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Schmitz, a question on the technicalities of this 
Reserve situation. Were you in a drill status, drawing pay at 
the time you wrote the letter, or an inactive status?
    Mr. Schmitz. Inactive status.
    Senator Warner. I am quite familiar with that. I think that 
technical standpoint clarifies any question as to the legality 
of what you did.
    Mr. Schmitz. It was not my drill weekend. I was on my free 
time.
    Senator Warner. You were not then, drawing drill pay 
intermittently, were you?
    Mr. Schmitz. No. I was assigned to a unit at the time.
    Senator Warner. So you were drawing drill pay?
    Mr. Schmitz. Yes, but I was not on my drill weekend.
    Senator Warner. But you were not in an inactive status. In 
other words, I served 12 years in the Reserves, many years ago. 
I was largely in an inactive status, subject to recall.
    Mr. Schmitz. I was what they call Selected Reserves.
    Senator Warner. An interesting question by our colleague, 
Senator Lieberman. He is the chairman of the committee that has 
overall jurisdiction and oversight on the Inspectors General, 
and it is interesting, the statute establishing the Department 
of Defense Inspector General is unique in that it provides 
somewhat less independence to the Department of Defense 
Inspector General as compared to the statutory independence of 
other executive department Inspectors General.
    I remember when this committee wrote the statute, some of 
the reasons for it, but in any event, in your opinion does the 
Department of Defense Inspector General possess the necessary 
statutory authority to carry out what is expected of an 
Inspector General, and would you like to take that question for 
the record? I would accept that response, because it is rather 
complicated.
    Mr. Schmitz. It is a very complicated question, Senator, 
and I have been shown a binder about 4 inches thick about the 
debate over the distinction that you just mentioned.
    Senator Warner. I would ask that you commit to this 
committee that in the course of your duties, if you feel that 
the current statute is inadequate to fulfill the 
responsibilities of an Inspector General, that you would be 
forthcoming to the committee with a recommendation.
    Mr. Schmitz. I can so commit.
    [The information referred to follows:]

    It would be premature for me to offer at this time any 
recommendations on statutory changes to the authorities of the Office 
of the Inspector General that might be necessary. If confirmed, I will 
commit to a thorough review of current statutes and will be forthcoming 
with this committee on any changes that I may recommend.

    Senator Warner. Now lastly, Mr. Schmitz, and I say this 
with a sense of humility, but I have been on this committee 23 
years, and I spent 5 years in the Department, so that begins to 
add up to a little bit of experience, and I have been involved 
in hundreds of nomination proceedings while in the Department.
    I have heard testimony from a great many nominees and have 
known the quality of each of them to serve in the Navy 
Department. I full well recognize, having lived the life myself 
for nearly three-quarters of a century, that as you go through 
life you have friends, enemies, family, and other persons with 
whom you have some degree of association whose conduct does not 
meet the standards that we in our society expect of people. 
There is in the public domain some information about persons 
with whom you have had some association.
    I have examined that, and it is my conclusion that those 
particular cases have no relevance, in my judgment, to the 
nomination that comes before us in our advise and consent role. 
But we have a fiduciary duty not only to the members of the 
committee who may not be present here, but all 100 Senators. I 
would simply say that I am available to discuss with any Member 
of the United States Senate such questions as they may have 
about the material that is in the public domain, and that I 
will again express my opinion to them that it has no relevance 
to your nomination.
    Mr. Schmitz. Thank you, Senator.
    Senator Warner. I just wanted to make that statement for 
the record.
    By the way, I intend to support this nomination.
    Senator Reed. Thank you, Senator Warner.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Thank you for proceeding with this hearing, and I am sorry 
that unavoidable matters have kept me in another area of the 
Capitol. I would make a few remarks, and I suspect you are 
ready to conclude the hearing, to express my appreciation for 
both of these individuals, who are giving of themselves to 
serve their country.
    I think it is exceedingly important, one of the hardest 
things we have to do around here is getting good information, 
good, honest data from which to make decisions. You would think 
it would be easy. I find it very difficult. People can 
misinterpret even good data, so it is a double problem there.
    As a Federal prosecutor for a number of years, Mr. Schmitz, 
I would say to you that I hope you will remember and teach your 
agents that they serve the public, that they should feel no 
pressure or thought that they might embarrass the Department of 
Defense. If there is a problem it really ought to be aired. If 
somebody has done something illegal, it should be referred for 
prosecution, and I think sometimes that is not always done.
    Most Inspectors General are really aggressive and try to do 
a good job, but sometimes matters that are criminal ought to be 
referred for criminal prosecution and not kept in-house. I know 
that is a delicate decision that you will have to make many 
times, whether the cases are worthy of prosecution, as opposed 
to just disciplinary action, or closing the books on them.
    Mr. Chairman, I would say how much I appreciate your moving 
this. I believe it will be important to have these nominees 
confirmed and on board, and get the Defense Department humming, 
and I look forward to working with both of them.
    Thank you.
    Senator Reed. Thank you, Senator Sessions.
    There are no further questions. Thank you very much, Mr. 
Schmitz and Ms. Pack. The hearing is adjourned.
    [Whereupon, at 4:28 p.m., the committee adjourned.]

    [Prepared questions submitted to Joseph E. Schmitz by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                                                     July 19, 2001.
The Hon. Carl Levin,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                 Joseph E. Schmitz.
cc:
The Hon. John W. Warner,
Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. It is 
my understanding that the focus on ``jointness'' outlined in the 
Defense Reorganization Act of 1986 has significantly enhanced the 
readiness and warfighting capabilities of the U.S. armed forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. It is my understanding that these reforms have 
fundamentally changed the way the Department of Defense works by 
strengthening civilian control of DOD, improving military advice given 
to the President and Secretary of Defense, and advancing the ability of 
the Department to carry out its fundamental mission--protecting 
America's security and furthering its vital interests.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of these defense reforms, as I 
understand them, are the clear responsibility and authority given the 
Combatant Commanders for mission accomplishment, and the increased 
attention to formulation of strategy and contingency planning.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility in the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
Goldwater-Nichols legislation.
    Question. Recently, there have been articles, which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I have not had the opportunity to review any proposed 
amendments to Goldwater-Nichols. I anticipate that the Department would 
consult closely with Congress, especially with this committee, before 
any modifications are suggested.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Inspector General of the Department of Defense?
    Answer. The duties and functions of the Inspector General of the 
Department of Defense are specified in the Inspector General Act of 
1978, as amended. It is my understanding that the Inspector General 
conducts and supervises audits and investigations of all aspects of 
Defense operations, and provides leadership, coordination, and policy 
for activities designed to promote sound management and combat fraud 
and abuse. I believe that the DOD Inspector General bears an obligation 
to keep both the Secretary of Defense and Congress fully and currently 
informed on significant problems in Defense programs, the need for 
corrective action, and the status of such action.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If I am confirmed, I expect that the Secretary of Defense 
will prescribe for me the full extent of the duties set forth in 
Section 8 of the Inspector General Act. In this regard, I look forward 
to the opportunity to serve as ``the principal adviser to the Secretary 
of Defense for matters relating to the prevention and detection of 
waste, fraud, and abuse within the programs and operations of the 
Department.''
    Question. Section 2 of the Inspector General Act states that the 
purpose of that Act is to create ``independent and objective units'' to 
conduct and supervise audits and investigations, and for other 
purposes.
    Are you committed to maintaining the independence of the Inspector 
General as set forth in the Inspector General statute?
    Answer. I am fully committed to maintaining, if confirmed, the 
independence of the Inspector General as set forth in the Inspector 
General Act. I believe that individuals who conduct audits and 
investigations bear a heavy responsibility to maintain the highest 
standards of integrity, credibility, and fairness. To meet those 
standards, every audit and investigation must be independent, unbiased, 
and free from outside interference. Having relied on those principles 
throughout my careers as a naval officer and as an attorney, I am 
confident that, if confirmed, I will maintain the kind of independence 
called for by the statute.
    Question. Section 3 of the Inspector General Act provides that the 
head of the agency (e.g., the Secretary of Defense) may not ``prevent 
or prohibit the Inspector General from initiating, carrying out, or 
completing any audit or investigation, or from issuing any subpoena 
during the course of any audit or investigation,'' subject to limited 
exceptions.
    What is your view of the relationship between the Inspector General 
and the Secretary with regard to audits and investigations, in view of 
the independence provided by Section 3?
    Answer. If confirmed, I would attempt to establish a strong and 
constructive working relationship with the Secretary and other senior 
officials without in any way compromising the independence and 
integrity of audits and investigations conducted by the Office of the 
Inspector General.
    Question. Sections 4 and 8 of the Inspector General Act set forth a 
number of duties for the Inspector General, beyond the conduct of 
audits and investigations.
    What is your view of the relationship between the Inspector General 
and the Secretary with regard to these issues?
    Answer. If confirmed, I will strive to provide sound advice and 
assistance to management in improving departmental efficiency and 
performance and preventing fraud, waste, and abuse.
    To be effective and productive, I believe that the relationship 
between the Inspector General and the Secretary must be based on 
respect, confidence, and trust. Obviously, those must be earned--in the 
case of the Inspector General, by a consistent track record of 
credibility, professionalism, and fairness in audits, inspections, and 
investigations. If confirmed, I would strive to maintain those 
standards in the Office of the Inspector General and to develop the 
kind of solid working relationship with the Department's senior 
management that the statute envisions.
    Question. Section 3 of the Inspector General Act provides for the 
Inspector General to have a demonstrated ability in accounting, 
financial analysis, law, management analysis, public administration, or 
investigations.
    What background and experience do you possess that you believe 
qualifies you to perform the duties of the Inspector General?
    Answer. The following information documents my qualifications and 
experience for this position:
    (1) Experience relevant to the position of Inspector General of the 
Department of Defense:
    (a) 27 years of naval service (4 years at Naval Academy, 5 years 
active duty as surface warfare officer, and 18 years as a reservist), 
most recently as Deputy Senior Inspector, a.k.a. ``Inspector General,'' 
for the Naval Reserve Intelligence Program (since October 1999), 
responsible for Command Inspections/Audits, Investigations, and 
Intelligence Oversight of more than 4,000 naval reservists nationwide:

        <bullet> Acknowledged as one of only two Intelligence Oversight 
        internet experts within the Department of Defense at the 
        Secretary's first-ever National Intelligence Oversight 
        Conference in October 2000;
        <bullet> Prepared a pocket edition of the Declaration of 
        Independence and Constitution for the Naval Inspector General, 
        with an introduction and excerpts from laws underlying the 
        various constraints on governmental abuses of power within the 
        Navy, especially those within the responsibility of the 
        Inspector General: the laws against waste, fraud, abuse, Posse 
        Comitatus Act, and Intelligence Oversight;
        <bullet> Executive Officer of the Naval Criminal Investigative 
        Service (NCIS) Headquarters Reserve Unit (October 1997-
        September 1999); Unit awarded the prestigious ``O'Connell 
        Award'' for being the best overall large unit in the entire 
        Naval Reserve Intelligence Program for fiscal year 1998;
        <bullet> Executive Officer of Office of Naval Intelligence 
        Counter-narcotic Reserve Unit (October 1995-September 1997); 
        author of ONI's first-ever comprehensive analysis of legal and 
        practical restrictions imposed by the Constitution, the Posse 
        Comitatus Act, and Intelligence Oversight laws, on the 
        utilization of naval reservist in support of local law 
        enforcement efforts under the auspices of the High Intensity 
        Drug Trafficking Area (HIDTA) program (work product still 
        utilized as training ``bible'' for Department of Defense 
        counter-narcotic reservists mobilizing to support local law 
        enforcement efforts);
        <bullet> Project supervisor and co-author of the Defense HUMINT 
        Service's ``Intelligence Law Handbook'' (DIA Doc. # CC-0000-
        181-95, September 1995), prepared by team of five reservist 
        during annual active duty in DIA's Office of the General 
        Counsel (still cited as DIA's authority on Intelligence Law);
        <bullet> Joint Service Commendation Medal; Navy and Marine 
        Corps Commendation Medal (twice); Joint Service Achievement 
        Medal; Navy and Marine Corps Achievement Medal; Navy 
        Expeditionary Medal; National Service Medal (twice); Military 
        Outstanding Volunteer Service Medal; Naval Reserve Medal; Navy 
        Expert Rifle Medal; Navy Expert Pistol Medal; 
        Bundeswehrleistungsabzeichen (German Armed Forces Achievement 
        Award); Deutsches Sportabzeichen (German Sport Award).

    (b) Partner in major international law firm, with 14 years 
experience in complex litigation, including constitutional appellate 
litigation, whistleblower representation, and challenges to illegal 
actions by high-level government officials.
    (c) Adjunct Professor of Law, Georgetown University Law Center 
(since 1995); developed and taught advanced Constitutional Law 
seminar--focusing on constraints on governmental abuses of power.
    (d) Special Assistant to the Attorney General of United States, the 
Honorable Edwin Meese III (1987).
    (e) Law Clerk to the Honorable James L. Buckley, Circuit Judge, 
United States Court of Appeals for the District of Columbia Circuit 
(1986-1987); analyzed and briefed complex cases for Federal judge.
    (2) Testimony/Publications Relevant to Duties of Inspector General 
of Department of Defense:
    (a) Testified as a constitutional expert before the:

        <bullet> U.S. Senate Judiciary Committee at its Constitutional 
        Subcommittee Hearing on a Proposed Constitutional Amendment to 
        Prohibit Retroactive Taxation (August 4, 1994);
        <bullet> U.S. Senate Governmental Affairs Committee at its 
        Hearing on a Proposed Statutory Ban on Retroactive Taxation 
        (December 7, 1995); and
        <bullet> U.S. Senate Judiciary Committee at its Constitutional 
        Subcommittee Hearing on a Proposed Constitutional Amendment to 
        Prohibit Retroactive Taxation (April 15, 1996).

    (b) Various published articles addressing issues of national 
security and accountability, including ``Selling to Moscow Without 
Selling Out America,'' The Wall Street Journal (Dec. 1989); and 
``Coping With the New Russian Nuclear Threat: A Legal Alternative to 
Environmental Extortion,'' Georgetown International Environmental Law 
Review (1993).
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. I believe that I have the requisite expertise to perform 
the duties of the Inspector General. If confirmed, I will of course 
undertake extensive briefings and reviews of ongoing Inspector General 
projects and activities.
    Question. Based on your background and experience, are there any 
changes that you would recommend with respect to the organization or 
responsibilities of the Inspector General?
    Answer. At this point it would be premature for me to recommend 
organizational changes without first having had the opportunity to 
become thoroughly familiar with the activities and operations of the 
Office of the Inspector General.
    Question. Please describe your understanding of both the formal and 
informal relationships between the Inspector General and each of the 
following: the Comptroller General; the General Counsel for the 
Department of Defense; the Defense Contract Audit Agency; the Under 
Secretary of Defense for Acquisition, Technology, and Logistics; the 
Defense Acquisition Regulatory Council; the Director of Operational 
Test and Evaluation; the Inspectors General of the Military 
Departments; the Inspectors General of the Defense Agencies; the 
Criminal Investigative Organizations of the Military Departments; the 
General Counsels and Judge Advocates General of the Military Services; 
the Audit Agencies of the Military Departments; the General Counsels, 
and Judge Advocates General of the Military Services.
    Answer. It is my belief that the Inspector General must work 
closely with the Comptroller General to ensure that Department of 
Defense audit activities are coordinated with those of the General 
Accounting Office (GAO) to avoid unnecessary duplication of effort. 
Towards that end, the Inspector General and the Comptroller General 
exchange work plans, coordinate each new audit between the two 
organizations, provide audit results to each other, and share audit 
follow-up status information. It is my understanding that, under long-
standing DOD procedures, the Inspector General is the central DOD focal 
point for processing all GAO project announcements and reports 
requiring DOD comments.
    In addition, I understand that it is incumbent upon the DODIG, as 
specified in the Inspector General Act of 1978, to comply with 
standards established by the Comptroller General of the United States 
for audits of Federal establishments, organizations, programs, 
activities, and functions; that the DODIG must take appropriate steps 
to assure that any work performed by non-Federal auditors complies with 
the standards established by the Comptroller General; and that the 
DODIG must develop policy, evaluate program performance, and monitor 
actions taken by all components of the Department in response to 
contract audits, internal audits, internal review reports, and audits 
conducted by the Comptroller General of the United States.
    It is my understanding that the Inspector General and General 
Counsel work closely together on matters related to proposed 
legislation and regulations, audit findings that raise legal issues, 
and departmental policies on subjects ranging from ethics to 
contracting procedures. I also understand that the Inspector General 
receives direct legal support from a Deputy General Counsel in the 
Office of the DOD General Counsel under the terms of a memorandum of 
understanding that is intended to safeguard the independence of the 
Deputy General Counsel. If confirmed, I will have an opportunity to 
observe whether any impediments to the Inspector General's independence 
actually exist and whether any changes to the current arrangement might 
be necessary.
    It is my understanding that the Inspector General has the 
responsibility to provide policy direction and to conduct, supervise, 
and coordinate audits regarding departmental programs and operations. 
Given the scope of that authority, there is apparently frequent 
interaction between the Office of the Inspector General and the Defense 
Contract Audit Agency (DCAA), which is the largest DOD audit 
organization.
    I also understand that, while DCAA reports to the Under Secretary 
of Defense (Comptroller), it operates under audit policies established 
by the Inspector General. As such, the Director of the DCAA, along with 
other Department Audit Chiefs, meets regularly with the Inspector 
General to discuss and coordinate audit activities. I understand that a 
significant portion of the Inspector General's audit oversight efforts 
is focused on the DCAA, and DCAA provides a significant amount of audit 
support to DODInspector General procurement fraud investigations.
    It is my understanding that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics is responsible for a very large 
segment of departmental operations and, as such, is a major recipient 
and user of services and reports provided by the Office of the 
Inspector General.
    The Under Secretary's involvement would appear to be especially 
valuable to the Inspector General in audit planning efforts, 
particularly in the acquisition area. If confirmed, I will ensure that 
the Inspector General's audit and investigative coverage supports DOD 
acquisition and logistics reform efforts.
    It is my understanding that the Defense Acquisition Regulatory 
Council formally requests comments from the Inspector General on all 
proposed rules. I also understand that the Inspector General has 
traditionally put considerable emphasis on review of those proposals. 
If confirmed, I would anticipate continuing that emphasis.
    It is my understanding that the Director of Operational Test and 
Evaluation frequently requests audit coverage and is a principal user 
of many reports issued by the Office of the Inspector General. If 
confirmed, I would continue to support these cooperative efforts.
    Pursuant to the Inspector General Act of 1978, as amended, the 
Inspector General of the Department of Defense has a duty to ``give 
particular regard to the activities of the internal audit, inspection, 
and investigative units of the military departments with a view toward 
avoiding duplication and insuring effective coordination and 
cooperation,'' (Sec. 8(c)(9)), but the service secretaries retain 
operational control over all departmental audit and criminal 
investigative elements. Although it may seem that there would be 
extensively overlapping responsibilities between the Department of 
Defense Inspector General and the Military Department Inspectors 
General, I believe that there are distinct differences in their roles. 
The Military Department Inspectors General reportedly focus much more 
on force morale, welfare, and readiness issues. Their inspection 
programs are shaped by the priorities of their Services. It is my 
understanding that the Department of Defense Inspector General 
exchanges audit and inspection plans with the other Inspectors General 
to avoid duplication, and that the Department of Defense Inspector 
General occasionally leads joint reviews.
    I also understand that Department of Defense directives governing 
other activities in which the Military Department Inspectors General 
participate also confer upon the DOD Inspector General both policy and 
oversight roles with respect to those activities. These include the 
Department of Defense Hotline, whistleblower reprisal investigations, 
and investigations against senior officials.
    If confirmed, I plan to meet personally with the Military 
Department Inspectors General regularly to ensure that cooperation is 
optimized.
    It is my understanding that the Inspectors General of the Defense 
Agencies report to their respective agency heads. However, in areas 
such as inspections, audits, and the operations of hotlines, they come 
under the policymaking authority of the Department of Defense Inspector 
General. I believe that their audit activities are more analogous to 
Defense Inspector General audits than to Military Department Inspector 
General inspections. Therefore there are more formal arrangements for 
joint audit planning, especially for the intelligence agencies. If 
confirmed, I will seek to provide leadership within this portion of the 
oversight community, too.
    Statutorily, the Inspector General has the authority to initiate, 
conduct, and supervise criminal investigations relating to any and all 
programs and operations of the Department of Defense. Moreover, the 
Inspector General is statutorily authorized to develop policy, monitor 
and evaluate program performance, and provide guidance regarding all 
criminal investigative programs within the Department. In short, it is 
my understanding that the Inspector General directly interacts with the 
military criminal investigative organizations (MCIOs) in two broad 
areas: the conduct of criminal investigations in which there may be 
joint interest and the exercise of the Inspector General's policy and 
oversight role with regard to operations of the MCIOs. There appear to 
be many criminal investigations that impact primarily on the 
jurisdiction of a local commander and that are conducted by the 
appropriate MCIO or post military or security policy agency, while the 
Inspector General would be more heavily involved in investigations that 
affect major departmental programs or affect more than one military 
service. However, I believe that there are many criminal 
investigations, particularly in the fraud area, where there is joint 
interest and/or activity by both the Inspector General and the MCIOs 
and where close coordination of effort is required. If confirmed, I 
would work to maximize such cooperation.
    Statutorily, the Inspector General has the responsibility to 
provide policy direction and to conduct, supervise, and coordinate 
audits relating to DOD programs and operations. Obviously, under that 
authority, the Inspector General would have occasion to work closely 
with the military audit agencies.
    It is my understanding that the heads of the military audit 
organizations have been meeting at least quarterly with the DOD Deputy 
Inspector General to discuss ongoing issues, plans, and ways to better 
assist Department management. There are also several joint audit-
planning groups that have been created to improve and coordinate 
planning. I believe that the auditors from the Office of the Inspector 
General and the military organizations frequently assist each other on 
specific projects, particularly those involving audits required by the 
Chief Financial Officers Act. If confirmed, I would continue the 
emphasis on close coordination and joint efforts. In addition, I would 
ensure that Defense audit policies provide a good foundation for top 
quality audit support to the Department.
    It is my understanding that while there is no formal relationship 
between the Inspector General and the Military Department General 
Counsels and Judge Advocates General, on an informal level good working 
relationships have evolved on a case-by-case basis where there is some 
mutual interest. Moreover, I understand that attorneys assigned to the 
Office of the Inspector General occasionally seek assistance from these 
offices when an audit or investigation raises issues with which they 
may have some particular expertise.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Inspector General of the Department of Defense?
    Answer. I believe that the new Inspector General of the Department 
of Defense will need to confront immediately a number of challenges. 
First and foremost, I am aware of the serious allegations that more 
than a dozen employees in the office of the Inspector General of the 
Department of Defense participated in or were aware of the destruction 
of internal work papers related to an audit and the preparation and 
backdating of a new set of work papers in an effort to improve the 
office's performance in an external peer review. If confirmed, I will 
ensure that these allegations were fully investigated and will do 
whatever it takes as expeditiously as possible to restore full 
confidence in the integrity, reliability, and credibility of the Office 
of the Inspector General of the Department of Defense.
    In addition, the Inspector General of the Department of Defense 
will need to confront the same major challenges facing both the 
Secretary of Defense and congressional leadership vis-a-vis 
transforming our Armed Forces to meet emerging 21st century threats, 
including recruitment and retention of the most qualified personnel, 
sound management of existing technical assets, and intelligent 
utilization of new technology. The entire Department of Defense is 
still transitioning into the post-Cold War era, where national security 
demands are different, information technology is driving management 
processes, and both the force structure and infrastructure need further 
adjustments. With hundreds of reform initiatives already under way and 
others likely, there is a compelling need for objective feedback to 
senior management on how well reforms are working and whether 
performance reporting is reliable. In addition, high risk areas like 
information system acquisition have received relatively little audit 
coverage during the 1990s, and there is a compelling need to strengthen 
protections against computer crime, health care fraud, and similar 
threats. I believe that the Inspector General must make very thoughtful 
allocations of limited resources among the many conflicting priorities, 
requirements, and requests that confront the office during this 
challenging period of transformation.
    Finally, I feel that the Inspector General must be seen as both a 
guardian of enduring core values and an agent of reform, not a defender 
of overly complex and outmoded rules and processes.
    Above all, I strongly believe that the Inspector General must be 
perceived as being completely independent, candid, and fair.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Assuming I am confirmed, I would first endeavor to assess 
the extent and scope of the aforementioned allegations involving the 
external peer review. In this regard, I understand that another outside 
peer review has already been commissioned to identify deficiencies. I 
hope that this ongoing process will assist in the overall damage 
assessment. If confirmed, once I feel confident that any and all 
lingering problems have been accurately assessed, I will take whatever 
action is necessary to promptly remedy the deficiencies.
    Regarding the broader challenges mentioned above, if confirmed, I 
anticipate working closely with both the Secretary of Defense and with 
the congressional leadership to ensure that the various policy 
recommendations that result from the ongoing Department of Defense 
reviews are implemented in a manner that is consistent with the letter 
and spirit of the policies and proscriptions underlying the Inspector 
General Act of 1978, as amended, including effective coordination and 
cooperation among the military departments.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Inspector General of the 
Department of Defense?
    Answer. If confirmed, I will need carefully to review the functions 
and past performances of the Inspector General and the Office of the 
Inspector General in the Department of Defense. As noted above, I am 
aware of serious allegations regarding an external peer review. As 
mentioned above, if confirmed, I will ensure that these allegations 
were fully investigated.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. See my answer to question 3B above. Until I am able 
thoroughly to assess the problems, of course, I cannot establish a plan 
of action and time lines to address the problems. As mentioned above, 
if confirmed, once I feel confident that the problems have been 
thoroughly and accurately assessed, I will take whatever action is 
necessary promptly to remedy the deficiencies.
    Question. What broad priorities will you establish in terms of 
issues, which must be addressed by the Inspector General?
    Answer. If confirmed, I will endeavor to establish and address the 
following three broad priorities: (1) integrity; (2) efficiency; and 
(3) enthusiastic commitment to the core principles underlying our 
Constitution, foremost of which are the Rule of Law, various 
constraints on governmental abuses of power, including effective checks 
and balances, and ultimate accountability of public officials to ``the 
People of the United States.''
                     senior officer investigations
    Question. The Office of Inspector General plays a key role in the 
investigation of allegations of misconduct by senior officers and 
civilian employees of the Department of Defense. The Senate Armed 
Services Committee has a particular interest in investigations 
concerning officers who are subject to Senate confirmation, and relies 
upon the Office of Inspector General to ensure that these 
investigations are accurate and complete.
    If confirmed, what steps will you take to ensure that these 
investigations are conducted in a fair and impartial manner, and that 
complete and accurate information is provided to this committee in a 
timely manner?
    Answer. If confirmed, I will continue to emphasize the Inspector 
General role of ensuring that allegations of misconduct involving 
senior DOD officials are properly addressed. Senior DOD officials are 
understandably held to the highest standards of conduct. Alleged 
violations of law or regulation must be investigated aggressively, 
competently, and impartially.
    I believe that vigilant oversight of senior official investigations 
conducted by the Service Inspectors General, coupled with continual 
improvement in our own investigative capability, are the keys to 
maintaining excellence and credibility in this area. If confirmed, I 
will reemphasize the requirement that all allegations involving senior 
officials be reported to the DODIG within 5 days as required, and that 
a review of the nature of the allegations is conducted to ensure that 
the Service Inspector General possess the necessary independence to 
conduct an impartial inquiry. I will not hesitate to assume 
investigative jurisdiction where appropriate--particularly in cases 
where the subject of the allegations is a political appointee, where 
the subject outranks the Service Inspector General, or where 
allegations cross Service lines.
    Question. If confirmed, what standard would you apply to 
allegations of misconduct against nominees for senior civilian and 
military positions requiring the advice and consent of the Senate in 
deciding whether and when to inform the committee of any such 
allegations?
    Answer. If confirmed, I would anticipate continuing what I 
understand to be the current policy of reporting allegations of 
misconduct involving senior officials if those allegations are being 
addressed by an open investigation or inquiry. I would not anticipate 
reporting every allegation that the Office of the Inspector General of 
the Department of Defense might receive. I believe that the integrity 
of the nomination process and fairness to all concerned demands that we 
conduct a preliminary review of any incoming complaint against a 
nominated official to determine whether that complaint warrants 
investigation. Such a preliminary review would determine whether the 
allegation is credible, whether the alleged conduct violated an 
established standard, and whether the complaint provides sufficient 
information to enable a focused inquiry.
    If confirmed, I will insist that such a preliminary review be 
completed expeditiously. If the preliminary review cannot be rapidly 
concluded, an investigation would be opened and the allegations would 
be reported to the committee.
    My understanding is that the DODIG receives numerous allegations 
and complaints through a variety of sources, but that only a small 
percent of those allegations warrant investigation. I also understand 
that last year nearly 12,000 contacts were made with the DOD Hotline, 
but that only 2,000 of those contacts resulted in any type of 
investigative work.
    Question. Do you believe that the current allocation of 
responsibilities between the Department of Defense Inspector General 
and the military departments is appropriate to ensure fair and 
impartial investigations?
    Answer. I am unaware of any problems with the current allocation of 
responsibilities.
             authorities of the inspector general's office
    Question. In recent years, the Office of Inspector General has 
sought increased authority to issue subpoenas, carry weapons, and make 
arrests.
    Do you believe that the authorities of the Office of Inspector 
General are adequate in these areas, or would you recommend further 
changes in law?
    Answer. It is my understanding that the current staff of the Office 
of the Inspector General considers the recently augmented authority to 
be adequate. I am not aware of any need for further changes in the law 
at this time. If confirmed, I will notify the Department and Congress 
if anything comes to my attention that would warrant legislative 
action.
              activities of the inspector general's office
    Question. In recent years, representatives of the Inspector 
General's Office have participated on integrated process teams and 
other cross-cutting groups established to address deficiencies and 
problem areas in the Department.
    What role do you believe the Office of Inspector General should 
play in advising the Secretary and other officials in the Department on 
management issues such as acquisition policy and financial management 
policy?
    Answer. I believe it makes good sense for the Department to avail 
itself of advice from the Office of the Inspector General throughout 
the cycle of devising policy, planning for implementation of that 
policy, deciding what performance measures will be used, analyzing 
feedback on implementation status, addressing impediments to 
implementation, evaluating results, and adjusting policies if 
necessary.
    Question. Are you concerned that the participation of 
representatives of the Office of Inspector General in efforts of this 
kind could undermine the independence of the office?
    Answer. It is my understanding that the Office of the Inspector 
General has participated in numerous task forces, IPTs, and similar 
groups without a significant question ever being raised concerning its 
role and independence. If confirmed, I would make sure that I was 
informed of these activities and that appropriate controls were in 
place.
    Question. Do you believe that it would be appropriate for the 
Inspector General to conduct an audit or evaluation of a program which 
representatives of the Inspector General's office helped to design?
    Answer. It is my understanding that the advice provided by 
representatives of the Inspector General generally relates to 
management controls and performance measures, both of which should be 
subject to periodic audit verification. As long as the Inspector 
General personnel do not have a vested interest in specific program 
outcomes, I see little reason for concern in their testing controls and 
validating performance reporting. As a practical matter, I further 
understand that it would be extremely rare for the same individuals to 
be involved in formulating controls and reporting procedures and then 
subsequently auditing them. If there were ever any appearance of a 
conflict of interest, however, I would ensure that different personnel 
were assigned to the audits.
    Question. The performance of mandatory statutory duties, such as 
the performance of financial audits, has consumed a growing share of 
the resources of the Inspector General's office, crowding out other 
important audit priorities.
    What is your view of the relative priority of financial audits, and 
the resources that should be devoted to such audits?
    Answer. Under the Chief Financial Officers Act of 1990, the 
Inspector General of the Department of Defense has statutory 
responsibilities to audit the financial statements of the Department of 
Defense ``in accordance with applicable generally accepted government 
auditing standards.'' 31 U.S.C. Sec. 3521(e). It is my understanding 
that, throughout the last decade, this requirement has resulted in 
about 30 percent of the Inspector General audit effort and a very large 
military department audit effort being devoted to a rather frustrating 
attempt to validate the Department's badly flawed year end statements. 
If confirmed, I will continuously review the priorities and resource 
allocation within the Defense audit program to maintain the best 
possible balance between the various competing requirements.
    Question. Do you believe that resources currently directed to the 
audit of financial statements that are often described as unreliable 
would better be directed to other objectives?
    Answer. It is my understanding that the Office of the Inspector 
General has been shifting resources from audits of financial statements 
to audits of the projects to improve the automated systems that compile 
financial reports. If confirmed, I would ensure that this trend 
continues.
    Question. Do you see any need for legislative changes to give the 
Inspector General greater flexibility to target audit resources?
    Answer. No. At the present time, I am unaware of any need for 
legislative changes on audit flexibility.
    Question. Over the last 10 years, the Inspector General has gone 
from having one auditor for every $500 million on contract by the 
Department of Defense to one auditor for every billion dollars on 
contract.
    Do you believe that the Inspector General has resources it needs to 
conduct effective oversight over the Department's acquisition programs?
    Answer. It is my understanding that the Office of the Inspector 
General has characterized internal audit coverage in the acquisition 
area as inadequate. If confirmed, I would review the adequacy of 
auditing in acquisition and other management areas.
              integrity of the inspector general's office
    Question. In the mid-1990s, the Office of Inspector General found 
it necessary to require the taping and transcribing of all interviews 
conducted during internal investigations by the Defense Criminal 
Investigative Service (DCIS) after a former DCIS official was shown to 
have falsified interviews in two separate investigations. Earlier this 
year, an internal review by the Office of Inspector General verified 
that more than a dozen employees in the office participated in or were 
aware of the destruction of internal work papers related to an audit 
and the preparation and backdating of a new set of work papers in an 
effort to improve the office's performance in an external peer review.
    Do you believe that these events have undermined confidence in the 
integrity of the Office of Inspector General?
    Answer. See my answer to question #3 above.
    Question. What steps would you take, if confirmed, to restore 
confidence in the integrity of the Office of Inspector General?
    Answer. See my answer to question #3 above.
               legal advice for the dod inspector general
    Question. Under the DOD Inspector General's Organization and 
Functions Guide (Inspector General Guide 5105.1), the Deputy General 
Counsel (Inspector General) is a subordinate of the DOD General 
Counsel, but provides ``independent and objective legal advice and 
counsel to the DOD Inspector General on all matters that relate to the 
programs, duties, functions, or responsibilities of the Inspector 
General.''
    What is your opinion about the DODIG's reliance on the DOD General 
Counsel for legal advice and counsel? Do you believe that it adversely 
affects independence of the Inspector General?
    Answer. Please see my answer to question 2I regarding the 
relationships between the Inspector General and the DOD General 
Counsel.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Inspector General of the 
Department of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Joseph E. Schmitz follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 4, 2001.
    Ordered, that the following nomination be referred sequentially to 
the Committee on Armed Services, and if and when reported, be further 
referred to the Committee on Governmental Affairs for not to exceed 20 
days pursuant to an order of the Senate of January 5, 2001:
    Joseph E. Schmitz, of Maryland, to be Inspector General, Department 
of Defense, vice Eleanor Hill.
                                 ______
                                 
    [The biographical sketch of Joseph E. Schmitz, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Joseph E. Schmitz
    Joseph E. Schmitz is currently a partner with the firm of Patton 
Boggs LLP. Since 1987, he has been engaged in an aviation regulatory, 
international trade, legislative, administrative law, and 
constitutional appellate litigation practice. He has represented a wide 
array of clients located throughout the world, including commercial 
airlines and leasing companies, aircraft and automobile manufacturers 
and trade associations, shippers, and government entities.
    Mr. Schmitz' law practice encompasses regulatory and enforcement 
matters in the Department of Transportation, the Federal Aviation 
Administration, and other federal regulatory arenas. He has also 
represented a variety of foreign and domestic entities involved in the 
emerging economies of Central and Eastern Europe, and individual 
claimants in federal agency personnel proceedings.
    His 1989 article in the Wall Street Journal, ``Selling to Moscow 
Without Selling Out America,'' reviewed regulatory hurdles associated 
with the first-ever licensing of commercially leased Boeing aircraft to 
a Warsaw Pact country. Mr. Schmitz has also published numerous 
articles, presented lectures, and testified as a constitutional expert 
before the U.S. Senate Judiciary Subcommittee on the Constitution, the 
U.S. Senate Governmental Affairs Committee, and the full U.S. Senate 
Judiciary Committee. He is an Adjunct Professor of Law at the 
Georgetown University Law Center, where he developed and has taught a 
seminar in advanced Constitutional Law.
    Mr. Schmitz has had a long and distinguished 27-year career as both 
an active duty and reserve naval officer. During his active naval 
career, he served as an engineering division officer on board a gas 
turbine powered U.S. destroyer, as the Navigator of a German destroyer 
(as a participant in the Personnel Exchange Program), and as a Ship 
Superintendent in the Long Beach Naval Shipyard. Mr. Schmitz has also 
participated in exchange programs with the British Royal Navy and with 
the Japanese Maritime Self-Defense Force; and served as Liaison Officer 
with the Colombian and Mexican Navies during extended port calls. He 
still maintains German and limited Spanish language proficiency. 
Currently a Captain in the Naval Reserves, he is the Deputy Senior 
Inspector for the Naval Reserve Intelligence Program, responsible for 
Command Inspections/Audits, Investigations, and Intelligence Oversight 
of more than 4,000 Naval Reservists nationwide (a position he has held 
since October 1999).
    He graduated with distinction from the U.S. Naval Academy in 1978, 
and received his J.D. degree from Stanford University in 1986. Mr. 
Schmitz serves on the Steering Committee of the Washington Lawyers 
Chapter of the Federalist Society for Law and Public Policy Studies, 
and is a Young Leader Alumnus of the American Council on Germany. In 
1999, he was invested into the Sovereign Military Order of Malta.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Joseph E. 
Schmitz in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Joseph E. Schmitz.

    2. Position to which nominated:
    Inspector General of the Department of Defense.

    3. Date of nomination:
    September 4, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 28, 1956; Milwaukee, Wisconsin.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mollie Esther Davis of Tustin, California.

    7. Names and ages of children:
    Philip, 22; Joseph, 20; Nicholas, 18; Thomas, 17; Mollie, 13; 
Patrick, 11; Katherine, 9; and Matthias, 4.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    High School Diploma, Georgetown Preparatory School (1974); Bachelor 
of Science, with Distinction, United States Naval Academy (1978); 
Doctor of Jurisprudence, Stanford Law School (1986).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Partner, PATTON BOGGS LLP (1996-present); Partner, BESOZZI, GAVIN, 
CRAVEN & SCHMITZ (1995-1996); Associate of Counsel, PAUL, HASTINGS, 
JANOFSKY & WALKER (1987-1995); Adjunct Professor of Law at Georgetown 
University Law Center (since 1995).

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Special Assistant to the Attorney General of the United States, the 
Honorable Edwin Meese III (1987); Law Clerk to the Honorable James L. 
Buckley, Circuit Judge, U.S. Court of Appeals for the District of 
Columbia Circuit (1986-1987).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    PATTON BOGGS LLP, partner; U.S. English, Inc., director; Global 
Security Net, Inc., director; Metrodream.com, Inc., director; Angelic 
Foundation, director and officer; Millennium Technology Group LLC, 
director.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of the Bars of the District of Columbia (since 1989), 
Maryland (since 1995), and Pennsylvania (since 1988; currently 
inactive) (also admitted to practice law before: the Supreme Court of 
the United States; the United States Courts of Appeal for the District 
of Columbia, First, Third, Fifth, Sixth, Tenth, and Eleventh Circuits; 
the United States District Courts for the District of Columbia and 
Maryland; and the United States Court of International Trade); U.S. 
Naval Academy Alumni Association (1976-present); Federalist Society for 
Law and Public Policy Studies (1984 to present); Steering Committee of 
the Washington Lawyers Chapter (1987 to present); Knights of Columbus 
(1988-present); Church of the Little Flower Parish Council (1989-1994), 
Chairman (1993-1994); Kenwood Golf and Country Club (1993-present); 
Sovereign Military Order of the Temple of Jerusalem (1996-present); 
Sovereign Military Hospitaller Order of St. John of Jerusalem, of 
Rhodes, and of Malta (1999 to present); Reserve Officers Association 
(2000-present).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Orrin Hatch Campaign ($500; 2000); David McIntosh ($500 est.); 1996 
& 2000 (est.)).

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Joint Service Commendation Medal; Navy and Marine Corps 
Commendation Medal (twice); Joint Service Achievement Medal; Navy and 
Marine Corps Achievement Medal; Navy Expeditionary Medal; National 
Service Medal (twice); Military Outstanding Volunteer Service Medal; 
Naval Reserve Medal; Navy Expert Rifle Medal; Navy Expert Pistol Medal; 
Bundeswehrleistungsabzeichen (German Armed Forces Achievement Award); 
Deutsches Sportabzeichen (German Sport Award).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Legal Backgrounder, ``Are Federal Consumption Tax Proposals 
Constitutional?'' Washington Legal Foundation (``WLF'') (April 2, 
1999); Article, ``When the Commander in Chief Misleads, Who Follows? Or 
What Do We Tell the Troops Now, Commander?'' Congressional Record--
Extension of Remarks (October 9, 1998); Article, ``The Forgotten 
Preamble: Introduction to the Bill of Rights Gives More Meaning to the 
Tenth Amendment,'' FYI (American Legislative Exchange Council: April 
1996); ``Intelligence Law Handbook'' (Defense HUMINT Service, September 
1995); Presentation for Washington Legal Foundation Media Briefing--
1994-1995 Supreme Court Term (June 27, 1995); Legal Opinion Letter, 
``States' Power to Regulate Health Care Should Not Be Overlooked,'' 4 
WLF 5 (March 11, 1994); Op-Ed, ``If Taxes Can Be Retroactive to 1993, 
Why Not to 1990?'' Los Angeles Times (Feb. 28, 1994); Legal 
Backgrounder, ``Quo Vadis (Wither Goest Thou) Taxation: In Futuro or Ex 
Post Facto?'' 8 WLF 32 (Sept. 10, 1993); Article, ``Coping With the New 
Russian Nuclear Threat: A Legal Alternative to Environmental 
Extortion,'' Georgetown International Environmental Law Review (1993); 
Article, ``Are Retroactive Tax Increases Constitutional?'' 139 Cong. 
Rec. E1985 (daily ed. Aug. 4, 1993); Legal Backgrounder, ``Federal Sin 
Tax Proposals: What's the Federal Government Doing Regulating Health 
Care Anyway?'' 8 WLF 25 (July 23, 1993); OP-ED, ``Way to End Abortion 
Dilemma?: 10th Amendment Is Abortion Sleeper,'' National Law Journal 
(March 15, 1993); Article, ``East Meets West,'' Naval Institute 
Proceedings (1992); Article, ``Damn the Congressional Torpedoes: 1977 
and 1978 Recapture the GI Bill,'' Shipmate (October 1991); ``Drive to 
Repeal Abortion Law Will Say Much About Our Societal Conscience,'' 
Catholic Standard (April 25, 1991); Op-Ed, ``Selling to Moscow Without 
Selling Out America,'' The Wall Street Journal (December 1989); Special 
Supplement, ``Federalism: Reconciling a `Human Life' and `States' 
Rights' Approach to the Legal Protection of the Unborn,'' Human Life 
Review (Spring 1989); Mandate for Leadership (Heritage Foundation 
1988).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Testified as a constitutional expert before: the U.S. Senate 
Judiciary Committee at its Constitutional Subcommittee Hearing on a 
Proposed Constitutional Amendment to Prohibit Retroactive Taxation 
(August 4, 1994); the U.S. Senate Governmental Affairs Committee at its 
Hearing on a Proposed Statutory Ban on Retroactive Taxation (December 
7, 1995); and the U.S. Senate Judiciary Committee at its Constitutional 
Subcommittee Hearing on a Proposed Constitutional Amendment to Prohibit 
Retroactive Taxation (April 15, 1996).

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Joseph E. Schmitz.
    This 20th day of June, 2001.

    [The nomination of Joseph E. Schmitz was reported to the 
Senate by Chairman Levin on December 20, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was then referred to the Committee on Governmental Affairs. The 
Committee on Governmental Affairs was discharged from further 
consideration of this nomination on February 11, 2002, and the 
nomination was placed on the Executive Calendar. The nomination 
was confirmed by the Senate on March 21, 2002.]
                              ----------                              

    [Prepared questions submitted to Sandra L. Pack by Chairman 
Levin prior to the hearing with answers supplied follow:]

                                                  October 18, 2001.
The Hon. Carl Levin,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: I enclose the answers to the advance questions 
asked of me by the Senate Armed Services Committee.
            Sincerely,
                                                    Sandra L. Pack.
cc:
The Hon. John W. Warner,
Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the enactment and objectives of the 
Goldwater-Nichols Act and Special Operations reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. It appears that these reforms have resulted in significant 
improvements by defining the roles and responsibilities of the 
Secretary of Defense, the Chairman of the Joint Chiefs of Staff, and 
the Service Secretaries. As a result, operational effectiveness has 
been improved. I do believe it is important to continue to evaluate and 
improve as we transform the Army.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe that the key result was the strengthening of the 
effectiveness of military operations, which was accomplished by 
strengthening civilian control and better defining responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles, which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am not aware of any current proposals to amend Goldwater-
Nichols. It is too early for me to comment about any proposals without 
additional evaluation and insight.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Financial Management?
    Answer. If confirmed, I will be responsible for advising the 
Secretary of the Army on financial matters and directing all 
Comptroller and Financial Management functions and activities of the 
Department of the Army.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my background qualifies me to serve as Assistant 
Secretary of the Army (Financial Management and Comptroller). I have 
significant experience in financial management, to include 
certification as a public accountant, experience in private industry, 
and service as the Treasury Director of multiple presidential 
campaigns. If confirmed, I believe I would bring a solid foundation of 
experience and leadership and that I will be able to advise the 
Secretary of the Army and other Army leaders effectively on financial 
management matters.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army for Financial Management?
    Answer. Absolutely. Although I have a depth of knowledge in 
financial management and I am an experienced manager and leader, I am 
always looking to improve my skills and understanding. Once confirmed, 
I will need to gain a better understanding of many of the internal 
issues, structures, and processes of the Army and the Department of 
Defense. I look forward to learning about soldiers and how to acquire 
and manage resources to support them.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If confirmed, I will be responsible to the Secretary of the 
Army for all financial management issues of the Department of the Army, 
in accordance with 10 U.S.C. Sec. Sec. 3014(c) and 3016(b)(4).
    Question. In carrying out your duties, how will you work with the 
Secretary of the Army, the Under Secretary of the Army, the Under 
Secretary of Defense (Comptroller), and the Assistant Secretaries of 
the Navy and the Air Force for Financial Management?
    Answer. If confirmed, I would be part of a senior leadership and 
management team that works with a common direction and unity of purpose 
within the Army as well as across the Services and the Department of 
Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Financial Management?
    Answer. I am not fully aware of all the challenges. However, any 
Assistant Secretary of the Army for Financial Management will be 
challenged to improve financial management systems and processes, to 
include finance, accounting, budget, and feeder systems, to provide 
accurate, reliable, and timely financial information. We must develop 
consistent and executable budgets that support the priorities of the 
Secretary of Defense and the Secretary of the Army, under the guidance 
and direction of the President.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Comptroller) and our sister services, and the Army 
leadership team to achieve a unified approach to addressing challenges. 
I will make every effort to ensure that sufficient resources and 
financial management information are available to successfully address 
issues.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Army 
for Financial Management? 
    Answer. I am not aware of specific problems. However, I believe we 
need to provide reliable, accurate, and timely financial information to 
the Secretary of the Army and the Chief of Staff of the Army to enable 
them to allocate resources to properly train, man, and equip the Army.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will evaluate the specific issues and work 
with the Army Staff and Secretariat as well as DOD to establish 
timelines as appropriate.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues, which must be addressed by the Assistant Secretary 
of the Army for Financial Management?
    Answer. If confirmed, I will work closely with Secretary White to 
define priorities, which I am sure will include improving the planning, 
programming, budgeting, and execution process. Another priority will be 
to modernize financial management systems and processes.
         civilian and military roles in the army budget process
    Question. What is your understanding of the division of 
responsibility between the Assistant Secretary of the Army for 
Financial Management and the senior military officer responsible for 
budget matters in the Army's Financial Management and Comptroller 
office (the Deputy Assistant Secretary of the Army for Army Budget) in 
making program and budget decisions including the preparation of the 
Army Program Objective Memorandum, the annual budget submission, and 
the Future Years Defense Program?
    Answer. My understanding stems from 10 U.S.C. Sec. 3014(c). As 
written, the Secretary of the Army has overall responsibility for 
financial management and comptroller functions. If confirmed as the 
Assistant Secretary of the Army (Financial Management and Comptroller), 
I will have responsibility for all budget matters within the Department 
of the Army. The senior military officer who serves as the Deputy 
Assistant Secretary of the Army for Army Budget will serve under my 
direct supervision and will be responsible to me for the formulation, 
justification, and execution of the Army budget. Additionally, if 
confirmed, I will have formal oversight responsibility for the 
Secretary for all financial aspects of the Program Objective Memorandum 
preparation and the Army portions of the annual President's budget 
submission, along with all the entries in the Future Years Defense 
Program (FYDP).
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and initiatives the Department and its components 
are undertaking to correct these deficiencies, problems with financial 
data continue.
    What do you consider to be the top financial management issues to 
be addressed by the Department of the Army over the next 5 years?
    Answer. I believe that the Department of the Army must improve 
financial management systems--budgetary and accounting--and processes 
so that the Army leadership has timely and reliable data on which to 
make business decisions regarding the allocation of resources near term 
and in the program years. This includes ensuring that the functional 
proponents' systems (e.g., property, logistics, real estate, personnel, 
environmental) are fully interfaced, and their data integrated, to 
present a complete resource picture for decision-makers.
    Question. If confirmed, how do you plan to provide the needed 
leadership and commitment necessary to ensure results and improve 
financial management in the Army?
    Answer. If confirmed, I intend to make the improvement of financial 
management in the Department of the Army, particularly in terms of the 
quality and timeliness of financial information, one of my priorities. 
I will work closely with Army leaders for their involvement and 
commitment to improve our financial management practices.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Army's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and the anticipated results are being achieved?
    Answer. If confirmed, I will enlist the support of the leadership 
of Department of the Army to establish logical, useful, and relevant 
performance measures. Efforts should be designed to achieve necessary 
auditing conditions, as well as provide accurate, reliable, and timely 
information for decision makers.
              compliance with chief financial officers act
    Question. The Chief Financial Officers Act requires the annual 
preparation and audit of financial statements for federal agencies. 
However, the DOD Inspector General and GAO's financial audit results 
have continually pointed out serious internal control weaknesses 
concerning hundreds of billions of dollars of material and equipment, 
as well as billions of dollars of errors in the Department's financial 
records.
    In your view, is the Army capable of meeting the requirements 
imposed by the Chief Financial Officers Act? If not, please describe 
the actions you think are necessary to bring the Army into compliance 
and the extent to which such actions are the responsibility of the 
Assistant Secretary of the Army for Financial Management or other 
officials in the Department of the Army or the Department of Defense.
    Answer. I understand the Army is not currently able to meet the 
requirements of the Chief Financial Officers Act. If confirmed, I will 
work with the Under Secretary of Defense (Comptroller) to ensure 
adequate funding and the right leadership emphasis and involvement.
            standardization within the department of defense
    Question. Many of the financial management initiatives currently 
underway within the Department of Defense are centrally controlled by 
the Office of the Secretary of Defense, and most observers believe that 
financial management and comptroller practices should be standardized 
throughout the Department of Defense to the maximum extent possible.
    What role do you feel the military departments should have in the 
decision-making process when DOD-wide financial management decisions 
are made? What are your views on standardizing financial management 
systems (including hardware and software) and financial management 
practices across the Department of Defense?
    Answer. I believe standardization promotes efficiencies. It is my 
understanding that the Under Secretary of Defense (Comptroller) has the 
lead with extensive Service involvement for achieving Department-wide 
solutions to financial management challenges. If confirmed, I will 
actively participate in and fully support this process.
    Question. Are there areas where you believe the Army needs to 
maintain unique financial management systems?
    Answer. I am not sufficiently acquainted with the Army's current 
systems, however, if confirmed, this is an area I will evaluate.
             responsibility for accuracy of financial data
    Question. When the Department of Defense, through the Under 
Secretary of Defense (Comptroller) or the Defense Finance and 
Accounting Service, prepares financial or budget information for 
submission to the Office of Management and Budget or Congress, who is 
ultimately responsible for the accuracy of information concerning the 
Army?
    Answer. If confirmed, I will be ultimately responsible for the 
accuracy of the data, with considerable support from the Defense 
Finance and Accounting Service, as well as the Army's functional 
proponents, who often initiate and develop the Army's financial data.
                     financial management training
    Question. In response to the Defense Acquisition Workforce 
Improvement Act of 1991, DOD has taken action directed at improving the 
professionalism of its acquisition workforce. This was brought about as 
a result of the need to better ensure that DOD's acquisition workforce 
was well versed in the rapidly changing technical skills needed to keep 
abreast of acquisition trends. A key part of the effort to upgrade the 
professionalism (technical currency) of DOD's acquisition workforce was 
the requirement that each acquisition official receive a minimum of 80 
hours of continuous learning every 2 years. While DOD has stated that 
there should be a comparable goal for financial management personnel, 
DOD has not made such training a requirement because of uncertainties 
over whether necessary funding would be available.
    What are your views on the merits of establishing a requirement 
that all Army financial management personnel receive a minimum of 80 
hours of training every 2 years?
    Answer. I am a strong supporter of continuing education and 
maintaining a high level of technical and professional proficiency and 
currency.
    Question. If confirmed, what actions would you take to ensure that 
the Army's financial management personnel keep abreast of emerging 
technologies and developments in financial management?
    Answer. If confirmed, I will make part of my strategic plan hiring, 
training, mentoring, and retaining a professional and skilled financial 
management workforce that is encouraged and rewarded for the pursuit of 
excellence and currency in financial management technologies and 
practices. I will work closely with the Under Secretary of Defense 
(Comptroller) and the Secretary of the Army to accomplish this goal.
           planning, programming, and budgeting system (ppbs)
    Question. Recently, a commission which included a number of former 
Defense officials and former Comptroller General Charles Bowsher stated 
that the Department's Planning, Programming, and Budgeting System 
(PPBS) is no longer functioning effectively. The Quadrennial Defense 
Review stated that the Department of Defense plans to study a redesign 
of the PPBS process.
    What are your views on the PPBS process? Are there any changes that 
you would recommend?
    Answer. As specified by Army General Order, the Assistant Secretary 
for Financial Management and Comptroller is responsible for overall 
management of the PPBS system. If confirmed, I will personally 
participate in any PPBS reviews, to achieve the desired outcomes that 
include streamlining the process, improving the quality of PPBS 
products, and strengthening analytical reviews so that we budget in the 
same manner that we execute.
             government performance and results act (gpra)
    Question. If confirmed as the Assistant Secretary of the Army for 
Financial Management, what would your responsibilities be with respect 
to the requirements of the GPRA to set specific performance goals and 
measure progress toward meeting them?
    Answer. Both the Secretary of the Army and the Secretary of Defense 
have stated they believe the Department should operate more like a 
business. To do so requires the establishment of performance-based 
measures and metrics. If confirmed, I will support this effort.
    Question. What additional steps can the Army take to fulfill the 
goals of the GPRA to link budget inputs to measurable performance 
outputs?
    Answer. If confirmed, it is my intent to support the development of 
meaningful performance metrics and integrate them into the budgeting 
and decision making process.
                          incremental funding
    Question. In your view, what are the likely benefits or advantages 
of incremental funding of major weapons systems?
    What are the likely costs or disadvantages of such funding?
    How do you weigh these competing costs and benefits, and what 
approach do you believe the Army should take toward incremental funding 
of major weapons systems?
    Answer. It is my understanding there are several approaches for 
funding major weapons systems. There is incremental funding and full 
funding. There is the use of single-year and multi-year contracts. If 
confirmed, I will evaluate the advantages and disadvantages of each and 
make the appropriate recommendations to the Secretary of the Army.
                        savings from competition
    Question. The Army and the other military departments have 
substantially increased the number of public-private competitions in 
recent years in order to achieve greater efficiency and effectiveness 
while reducing costs. Studies have shown that the military departments 
save money regardless of which side wins the competition.
    Do you believe that decisions on whether to outsource work 
currently performed by government civilians should be made through 
public-private competition?
    Answer. I understand that the public-private competitions have been 
successful in generating savings and efficiencies. If confirmed, I will 
work with the Department of Defense and the Department of the Army 
staff to evaluate the effectiveness of public-private competitions.
    Question. What steps should the Army undertake to measure the 
actual savings achieved after such competitions?
    Answer. I believe independent cost evaluations are important both 
prior and subsequent to the competition. The Army should measure 
savings and also cost estimates for future competitions.
    Question. What are your views on the practice of including 
``funding wedges'' in the budget that anticipate savings from public-
private competition or other efficiencies prior to those savings 
actually being achieved?
    Answer. Funding wedges can be harmful if decisions are delayed, not 
implemented, or the predicted savings do not materialize. That is why 
it is important to establish sound policy controls and accurate cost 
estimates to predict outcomes.
                         working capital funds
    Question. Are there any changes you would recommend in the policies 
governing working capital funds in the Department of the Army?
    Answer. I am not currently familiar enough with the Army Working 
Capital Fund to recommend any policy changes. Based on my understanding 
of revolving or working capital funds, the Army Working Capital Fund 
would be an integral part of the Army financial management systems, and 
important in providing accurate, timely, and reliable financial 
information.
    Question. Do you believe the scope of activities funded through 
working capital funds should be increased or decreased?
    Answer. If confirmed, I will review the scope of activities and 
propose any changes to the scope of activities if warranted.
                  oversight of special access programs
    Question. If confirmed as the Assistant Secretary of the Army for 
Financial Management, will you be responsible for the financial 
management of special access programs in the Army?
    Answer. If confirmed, I understand I will have responsibility for 
the financial management of all special access programs in the Army.
    Question. Are you satisfied with the oversight standards for the 
financial management of special access programs? Are these standards as 
stringent as those for other programs?
    Answer. I understand the oversight standards for the financial 
management of special access programs are as stringent as those for 
other programs, but I am not yet fully aware of these standards and how 
they are enforced. If confirmed, I will ensure such standards are 
carefully and fully applied to these important programs.
    Question. Does the Office of the Assistant Secretary of the Army 
for Financial Management have sufficient cleared personnel and 
authority to review special access programs?
    Answer. I have seen that the Office of the Assistant Secretary of 
the Army (Financial Management and Comptroller) has an office dedicated 
to the financial management of Army special access programs. However, I 
am not currently aware of the numbers or sufficiency of the cleared 
personnel. If confirmed, I will ensure that there are a sufficient 
number of trained personnel with appropriate clearances to guarantee 
appropriate financial oversight.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Financial Management?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Sandra L. Pack follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 10, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Sandra L. Pack, of Maryland, to be an Assistant Secretary of the 
Army, vice Helen Thomas McCoy.
                                 ______
                                 
    [The biographical sketch of Sandra L. Pack, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Sandra L. Pack
    Sandra Pack, nominated by the President to be Assistant Secretary 
of the Army for Financial Management, is a certified public accountant. 
Since 1996, she has been a financial consultant to a number of 
political committees. In March 1999, Ms. Pack became Director of 
Treasury for the President's campaign and devised and managed the 
budgeting, accounting, and financial planning systems for the primary 
and general campaigns, including ensuring that the campaigns complied 
with federal election laws. Since the election, Ms. Pack has managed 
the campaign's post-election FEC audit. Ms. Pack also served as 
Director of Treasury for Senator Phil Gramm's presidential campaign 
from 1995 to 1997, and Deputy Director of Treasury for Senator Bob 
Dole's presidential campaign in 1996.
    In the private sector, Ms. Pack was Director for Planning and 
Operations for the MicroProse Division of Spectrum Holobyte, Inc., in 
Hunt Valley, Maryland, from 1994 to 1995, where she restructured 
functions affecting finance, planning, accounting, operations, 
information systems, and facilities maintenance. She was employed for 
12 years by Ernst & Young, where she provided innovative and value-
added consulting and accounting services to owner-managed businesses in 
a broad range of industries. While employed at Ernst & Young, she 
served as Director for Microcomputer Consulting and Accounting Services 
in Atlanta, Georgia, from 1982 to 1987, and Director for Small Business 
Consulting and Accounting Services in Baltimore, Maryland, from 1987 to 
1994.
    Ms. Pack was awarded the degree of Bachelor of Arts in Business 
from the Notre Dame College of Maryland in Baltimore, where she 
graduated Summa Cum Laude, and received the Nancy Schloss Award for 
being the outstanding business student in her class. The Atlanta 
Chamber of Commerce has also recognized Ms. Pack by naming her to its 
Women of Achievement.
    Ms. Pack's husband, Randall, received a naval commission in 1961, 
served on a destroyer in the Cuban Missile Blockade, and as head of the 
Engineering Department on two nuclear submarines. He has advanced 
degrees in Nuclear Engineering and Computer Science, and recently 
retired as Chief Engineer, Information Technologies, from RWD 
Technologies, Inc. of Columbia, Maryland.
    Ms. Pack's daughter, Amelia Humphries, 34, resides in Atlanta, GA, 
and is employed by J. Walter Thompson, an advertising and 
communications company.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Sandra L. Pack 
in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Sandra L. Pack.

    2. Position to which nominated:
    Assistant Secretary of the Army for Financial Management and 
Comptroller.

    3. Date of nomination:
    October 10, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 22, 1948; Denver, CO.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Randall Pack.

    7. Names and ages of children:
    Amelia Anne Humphries; 34.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Notre Dame College of Maryland--BA Business, August 1990.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Please refer to enclosed resume.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Major clients of Sandra L. Pack, CPA, LLC over the past 5 years: 
Bush for President, Inc.--Chairman: Donald Evans (1999); Dole for 
President, Inc. (1996-1997); Gramm for President, Inc. (1996-1997); 
American Dream Political Action Committee--Chairman: Henry Bonilla 
(1997-present); Cardinal Health, Inc. Political Action Committee (1998-
1999); Republican Leadership Council, Inc.--Chairman: Lewis M. 
Eisenberg (1997-present); Foundation for Responsible Government, Inc.--
Chairman: Lewis M. Eisenberg (1997-present); Kasich 2000--Kasich 
Presidential Exploratory Committee (1999); Pioneer PAC--Kasich 
Leadership PAC (1998-1999).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    The Maryland State Board of Accountancy since 1991; the American 
Institute of Certified Public Accountants since 1991; the Summit County 
Historical Society since 1997; Bill's Ranch Neighborhood Association, 
Frisco, CO, since 1997; Frisco Historical Society since 1997.
    Volunteer work: Defenders of Miner's Creek, Frisco, CO--501(c)(3) 
organization--since 1997.

    13. Political affiliations and activities: Republican.

    14. List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.

    15. List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Bush-Cheney 2000, Inc.--Director of Treasury; Bush for President, 
Inc.--Director of Treasury; Kasich 2000, Inc--Consultant; Dole for 
President, Inc.--Deputy Director of Treasury; Gramm for President, 
Inc.--Director of Treasury.

    16. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Bush for President, Inc.--$1,000; Friends of Phil Gramm--$1,000; 
National Republican Senatorial Committee--$110.

    17. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Graduated Summa cum Laude and received the Nancy Schloss Award for 
Outstanding Business Student Notre Dame College.

    18. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    19. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    20. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Sandra L. Park.
    This 12th day of October, 2001.

    [The nomination of Sandra L. Pack was reported to the 
Senate by Chairman Levin on November 8, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 8, 2001.]

 
  NOMINATIONS OF R.L. BROWNLEE TO BE UNDER SECRETARY OF THE ARMY; DR. 
DALE KLEIN TO BE ASSISTANT TO THE SECRETARY OF DEFENSE FOR NUCLEAR AND 
  CHEMICAL AND BIOLOGICAL DEFENSE PROGRAMS; AND PETER B. TEETS TO BE 
                    UNDER SECRETARY OF THE AIR FORCE

                              ----------                              


                       THURSDAY, NOVEMBER 8, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SR-222, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Akaka, 
Bill Nelson, Bingaman, Warner, Thurmond, Inhofe, Allard, 
Sessions, and Bunning.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel; Richard 
D. DeBobes, counsel; Evelyn N. Farkas, professional staff 
member; Creighton Greene, professional staff member; and Peter 
K. Levine, general counsel.
    Minority staff members present: Charles W. Alsup, 
professional staff member; Judith A. Ansley, deputy staff 
director for the minority; L. David Cherington, minority 
counsel; Edward H. Edens IV, professional staff member; William 
C. Greenwalt, professional staff member; Gary M. Hall, 
professional staff member; Mary Alice A. Hayward, professional 
staff member; George W. Lauffer, professional staff member; 
Patricia L. Lewis, professional staff member; Thomas L. 
MacKenzie, professional staff member; Ann M. Mittermeyer, 
minority counsel; Suzanne K.L. Ross, research assistant; Joseph 
T. Sixeas, professional staff member; Cord A. Sterling, 
professional staff member; Scott W. Stucky, minority counsel; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Dara R. Alpert, Gabriella Eisen, 
and Daniel K. Goldsmith.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; William Bonvillian, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi, assistant to Senator Akaka; William K. 
Sutey, assistant to Senator Bill Nelson; Neal Orringer, 
assistant to Senator Carnahan; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders, assistant to Senator Allard; James 
P. Dohoney, Jr., assistant to Senator Hutchinson; and Derek 
Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of three individuals 
for senior positions in the Department of Defense: our own Les 
Brownlee to be Under Secretary of the Army; Dr. Dale Klein to 
be Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs; and Peter Teets to be 
Under Secretary of the Air Force. On behalf of the entire 
committee, I want to welcome each of you and your families. We 
have a tradition of asking nominees to introduce family members 
who are present, and we will ask each of them, as they open 
with their opening statement, to do that for all of us.
    We want to thank the family members who are here today for 
the sacrifices that they will be asked to make. These nominees 
simply cannot serve in their positions without the support of 
family and friends, so we want to thank families for their 
service to this Nation as well.
    This is a special day for this committee. One of our own 
staff members has been nominated to a senior position in the 
executive branch. Les Brownlee has been nominated by the 
President to serve as Under Secretary of the Army, and it is no 
surprise to any member of this committee. He has served with 
distinction on Senator Warner's staff, on the staff of the 
committee for the past 18 years. He has been Staff Director 
under two chairmen for 4 years, including Senator Thurmond, who 
is now joining us and who was distinguished chairman of this 
committee, and then Senator Warner.
    Prior to joining the committee staff, Les Brownlee had a 
distinguished career in the Army. He served two terms in 
Vietnam. He won the Silver Star with Oak Leaf Cluster, the 
Bronze Star with two Oak Leaf Clusters, and the Purple Heart.
    From the first day that Les served on this committee's 
staff until this moment, Les has always been guided by what he 
thought was in the best interests of the Nation's security, the 
best interest of the men and women of the Armed Forces, and in 
the best interests of this committee. Every member of this 
committee has benefitted from Les' judgment and advice over the 
years. We are all proud of what he has done for this committee 
and what he will do in his new position for the Army that he 
loves so much.
    You may have noted that I am presuming the outcome of this 
nomination process. Les is not allowed to do that, and I know 
he follows the rules and will not so presume, but I think it is 
safe to say that each member of this committee is very proud of 
what you have done, of the fact that you have now been given 
this nomination. We are delighted that the President has seen 
fit to nominate you.
    Dr. Klein, the second of our nominees, is the vice 
chancellor for special engineering programs and professor of 
mechanical engineering at the University of Texas. He has 
served at the University of Texas for 25 years. He is chairman 
and executive director of the Amarillo National Research 
Center, and has served on several Department of Energy 
committees, including the Nuclear Energy Research Advisory 
Committee. If confirmed as the Assistant Secretary of Defense 
for Nuclear, Chemical, and Biological Defense Programs, Dr. 
Klein would be the principal advisor to the Secretary of 
Defense for all matters concerning the formulation of policy 
and plans for nuclear, chemical, and biological weapons.
    I am going to take the liberty of the chair, however, to 
interrupt this procedure, because I want Senator Warner to have 
a very special moment here in introducing Les, and then perhaps 
to rejoin me while I comment on the other two nominees. I also 
know that Senator Thurmond is only able to stay with us for 
just a moment.
    Senator Warner. May I suggest Senator Thurmond follow you?
    Chairman Levin. I would call first on Senator Thurmond to 
make comments, then I would like to call on Senator Warner to 
make his special introduction. Then perhaps Senator Warner can 
come and rejoin me as we make the other introductions.
    Senator Thurmond.

              STATEMENT OF SENATOR STROM THURMOND

    Senator Thurmond. Thank you, Mr. Chairman.
    Mr. Chairman, today is a special day for the Armed Services 
Committee. We are considering the nomination of Les Brownlee, 
the committee's Republican Staff Director, to be the Under 
Secretary of the Army.
    In his more than 14 years on the Armed Services Committee 
staff he has become an institution. I am especially pleased 
with his nomination, since Les served as the Staff Director 
during my tenure as the chairman of the Armed Services 
Committee. I know that he is a professional in every aspect, 
and that he will have a lasting impact on the Army, as he has 
had on this committee. The committee will miss his expertise, 
and I understand the committee staff will miss the candy dish 
he kept in his office.
    Les, the committee's loss will be our soldiers' gain. We 
wish you success, and hope you will never forget your roots 
here on the Armed Services Committee.
    Dr. Klein and Mr. Teets, the fact that I spoke at length on 
Mr. Brownlee's nomination does not in any way diminish the 
importance of your nominations to the important positions for 
which you are being considered. In my judgment, President Bush 
has selected two highly qualified and professional individuals 
to fill the positions as assistant to the Secretary of Defense 
for Nuclear, Chemical, and Biological Defense Programs, and 
Under Secretary of the Air Force. I support your nominations, 
and wish you success as you become members of the Department of 
Defense's team that does such a superb job in providing for the 
security of our Nation.
    Mr. Chairman, I would also like to extend my 
congratulations to the nominees' family members who are here 
today. They deserve credit for the success of their loved ones 
and will have an important supporting role as each nominee 
takes on the challenges of their new positions.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Thurmond. I 
know how significant your words and your presence are to each 
of our nominees, and particularly to Les Brownlee.
    Now I am going to call upon Senator Warner for his special 
introduction.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman and members of the 
committee. I very much appreciate this opportunity. I must tell 
you that today is a very moving day for me. Mr. Chairman, you 
and I have been privileged to serve on this committee for 23 
years. There are days we shall never forget, and this is one 
for me.
    Thirty two years ago I sat right where I am sitting now 
before this committee to take on a job which by title is the 
same that you will take. However, I came up through a political 
system. Colonel Brownlee came up purely on the basis of merit 
and achievement, his record of service in uniform far more 
distinguished than mine, his record of knowledge about the 
Department of the Army more distinguished. Little did I know 
that I would stay 5 years, 4 months in those positions, and I 
hope you can do the same, if you can live that long. 
[Laughter.]
    It is a tough job, but I look back on it, Mr. Chairman, 
with all due respect to the United States Senate, as perhaps 
the most exciting and challenging chapter of my life. A war was 
raging in Vietnam, where you, Colonel Brownlee, were a young 
soldier. I was a civilian at that time. We had a mission to 
fulfill, and history will record how well each of us did. A war 
is now raging, perhaps not of proportions to that in Vietnam, 
but no less serious as it regards the credibility of the United 
States of America and the cause of freedom. I know of no more 
qualified individual that our President could find to take on 
this job than Les Brownlee.
    Those of us who are privileged to serve here in the Senate 
have the opportunity to recommend to Presidents individuals to 
take these positions. I was privileged to recommend Les, and I 
think several other members of this committee joined--I know 
you did, Mr. Chairman--in making that recommendation. I think 
each one of us in our hearts knows that this man is more than 
eminently qualified, and that he will leave this room to be 
confirmed by the Senate and take on these awesome 
responsibilities.
    I reflect on other staff members on both sides of the aisle 
now in this room and those who have gone before, who likewise 
have served this committee and served it admirably, and have 
gone on to presidential appointments and fulfill those 
positions with great distinction. It is a credit to the system 
that we have here in the Senate that we are fortunate to get 
the services of eminently qualified people to serve on our 
staffs, people who could earn more, have a better lifestyle 
beyond the halls of the Senate, but who, like ourselves, share 
the heavy responsibilities and other burdens of the Senate to 
do a job in public service.
    That is Les Brownlee. He and I have had a very close, 
personal relationship. We have traveled the world together on 
behalf of this committee. There are times when we have 
vigorously disagreed on subjects, at which time we would go 
into my office. We have a little ritual, he takes off his 
colonel's insignia and I take off the U.S. Senate insignia, and 
we have at it. Oftentimes Judy Ansley, who will succeed him, 
has to arbitrate. Nevertheless, we have had a marvelous 
relationship in which he has given me the unvarnished truth and 
advice, and that he will give the Secretary of the Army, the 
Secretary of Defense, and indeed, the President.
    So we wish him well, and guess what, Colonel Brownlee, you 
are on your own.
    I should say a word about his family, who is here, but I 
will leave that to Les.
    Chairman Levin. Thank you, Senator Warner, for that 
extraordinarily moving introduction. I know how meaningful 
those words are to Les Brownlee, as they are to each one of 
us--a very emotional moment, I know for you, Les. In 
recommending you, Senator Warner is making a major contribution 
again to this Nation, because we will lose you. His words again 
have rung true for all of us.
    There is only one condition. I usually do not condition my 
support for nominees, because I do not like to link things that 
are unrelated. There is one condition, however, that my support 
really depends on, and that is that you leave that candy jar 
here. [Laughter.]
    I will introduce the third nominee, then I am going to call 
on Senator Hutchison for her introduction. This is a little 
disjointed, Senator Hutchison. You will forgive us for this.
    Peter Teets served as president and chief operating officer 
of Lockheed Martin Corporation from 1997 to 1999. He previously 
served as president and chief operating officer of the Lockheed 
Martin's Information and Services Sector, and prior to their 
merger, as president of Martin Marietta Space Group, where he 
had served for more than two decades. If confirmed as the Under 
Secretary of the Air Force Mr. Teets would, in effect, be the 
chief operating officer for the Air Force.
    Let me see if Senator Warner has any further opening 
statement and then I will ask that Senator Kennedy's statement 
be inserted for the record after his remarks.
    Senator Warner. I will put my statement in the record along 
with the statements of Senator Smith and Senator Santorum. We 
have a number of things to get done here in a relatively short 
period of time.
    [The prepared statements of Senators Kennedy, Warner, 
Smith, and Santorum follow:]
            Prepared Statement by Senator Edward M. Kennedy
    Thank you, Mr. Chairman. It is a privilege to join in welcoming Les 
Brownlee, Dale Klein, and Peter Teets to the committee as we consider 
their nominations to key positions within the Department of Defense.
    I commend each of the nominees before us today, but I want to add a 
special word about Les Brownlee, the nominee for Under Secretary of the 
Army. The committee knows him very well, and he has been invaluable to 
all of us during his long service on the committee staff and as 
Committee Staff Director. His dedication to our men and women in 
uniform is well-known to members of the committee. In fact, it was Les 
who worked so effectively to establish the Soldier/Marine Enhancement 
Program, which helped to equip our servicemen and women with the most 
modern and versatile clothing available. We know he'll do an equally 
outstanding job as Under Secretary of the Army.
    All of these nominees will have important duties and 
responsibilities in the Department of Defense. They will be in charge 
of many policies affecting the men and women of the Armed Forces, and 
play key parts in strengthening our national defense to meet current 
and future threats at home and abroad.
    In addition to the ongoing war on terrorism, there are many other 
important issues facing today's service men and women, including pay, 
benefits, housing and retention. Especially at this difficult time, we 
need to do all we can to see that these needs are fully and fairly met. 
Our personnel continue to be our number one defense resource. I'm sure 
that these nominees will work effectively to meet their needs, and to 
carry out their operational responsibilities as part of the Nation's 
defense.
    Again, I welcome our nominees, and I look forward to their 
testimony.
                                 ______
                                 
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in extending a warm welcome to our distinguished 
nominees and their families. I thank you all for your willingness to 
serve at this challenging and demanding time in our Nation's history.
    Mr. Chairman, this is a very special occasion for me as I am 
privileged to finally ``introduce'' my adviser and friend of many 
years, Les Brownlee, to this committee.
    Les Brownlee can only be described as a tower of strength, 
dedication, and expertise within the Committee on Armed Services. After 
a highly distinguished career in the Army from 1962 to 1984, including 
two combat tours in Vietnam, Les joined my staff on December 30, 1983, 
as my National Security Advisor. He moved to the staff of the committee 
in January 1987, and, since that time has rendered extraordinary 
service to the committee, to the Senators who have had the privilege to 
serve on the committee, and to the United States Senate.
    It is indeed a privilege for this committee to have such a valued 
member of our staff recognized with this high honor. I have worked with 
this fine man for 18 years now. His dedication to country is surpassed 
by none. We will miss his wise counsel, but wish him all the best as he 
returns to the Army--his first home.
    Mr. Teets is a highly accomplished former president and chief 
operating officer of Lockheed Martin Corporation. He began his career 
in 1963 with Martin Marietta as an engineer in flight control analysis. 
In 1985, he was named President of Martin Marietta Denver Aerospace, 
which became Martin Marietta Astronautics Group in 1987. He was 
appointed president and chief operating officer of Lockheed Martin in 
July 1997. Thank you for your willingness to serve in this new 
capacity.
    Dr. Klein has had a distinguished career in academia and 
government. Since 1977, he has been a professor of Mechanical 
Engineering for Nuclear Programs at the University of Texas at Austin. 
He has served in a variety of leadership capacities at the University, 
including Vice Chancellor for Special Engineering Programs and 
Associate Dean for Research and Administration in the College of 
Engineering. Dr. Klein has also been an active member of several 
Department of Energy national committees including the Nuclear Energy 
Research Advisory Committee and has received numerous honors for his 
scholarly and public service pursuits.
    I welcome all of you.
                                 ______
                                 
                Prepared Statement by Senator Bob Smith
    Mr. Chairman, I am happy to take part in the confirmation hearing 
of these three fine nominees. I am especially pleased that one of our 
own is among the nominees.
    I have had the pleasure of working with Les since my arrival in the 
Senate--the better part of 11 years. I have seen Les progress from a 
SASC professional staff member to Staff Director for Senator Warner. I 
am glad to see years of hard work and dedication rewarded in this way.
    As a former Army officer and Vietnam veteran, Les brings a world of 
experience to the Office of the Secretary of the Army. Such experience 
and leadership is crucial to our Armed Forces and our country in the 
war against terrorism. Mr. Chairman, let me say that I have no doubt 
that Les will be an asset to the Army, and I will not need to ask him 
any questions as I have the utmost confidence in his capabilities, his 
loyalty, and his integrity. 
    I also wanted to comment on the Space Commission, which Mr. Teets 
and I have had the chance to discuss during his courtesy call in my 
office. I started the Space Commission because I believe space is 
critical to our future national security. We need to transform our 
military by leveraging the capabilities that space offers. The events 
of September 11 reinforce my perceptions.
    Global coverage from satellites will help us track down the 
terrorists. I wish we could augment that coverage by reactivating an 
unparalleled and magnificent platform, the SR71 ``Blackbird''--we have 
UAV's falling out of the sky in Afghanistan and an obvious problem with 
reconnaissance asset shortages.
    An aerospace plane (if we had one) could have deployed sensors in 
the theater in hours not weeks, pinning down the terrorists and their 
Taliban hosts.
    I firmly believe the country that controls space will prevail in 
times of war. DOD must have management and organization committed to 
space. I supported the findings of the Space Commission, and I was 
optimistic the findings would be implemented quickly given (1) the 
support of the administration and (2) the Commission Chairman Mr. 
Rumsfeld being confirmed as Secretary of Defense.
    I am disappointed the changes are taking so long and that the 
recommendations are not being fully implemented. Most of all, I am 
disappointed that despite all the talk about military transformation, 
the Air Force is not a good steward of space, rather it continues to 
favor old legacy aircraft programs.
    The Air Force is not delivering our current capabilities, they are 
not looking ahead to new opportunities, and they are not being 
visionary.
    (1) Our warfighters are demanding advanced protected satellite 
communications sooner, but the Air Force is slipping the schedule.
    (2) We have an opportunity to deploy a space-based radar that looks 
deep inside our enemies borders to track their movements, but the Air 
Force is foregoing that capability in favor of a limited airborne 
solution. 
    (3) We have invested millions in reusable launch X-vehicles, but 
the Air Force decided to drop the programs even though it didn't have a 
better way to develop the capability.
    Mr. Teets, I see a lot of problems in the Air Force regarding space 
management and stewardship of space--I see you as part of the solution!
    If confirmed, I will support your efforts to deliver the first-rate 
national security space capabilities this Nation needs.
    I hope the Secretary of Defense quickly delegates you the broad 
space-leadership authorities you need to do the job.
                                 ______
                                 
              Prepared Statement by Senator Rick Santorum
    Chairman Levin and Senator Warner, thank you for scheduling this 
hearing. President Bush and Secretary of Defense Rumsfeld have 
indicated that our Nation's military needs to transform to meet 21st 
century threats. This means the President and the Secretary will need 
top-quality individuals in the Pentagon to realize this goal. I think 
that today's nominees are well qualified to assist in this important 
transformation process and to make an immediate contribution to our 
National defense.
    Mr. Chairman and Senator Warner, let me first single out Les 
Brownlee, the President's nominee to be the next Under Secretary of the 
Army, for the fine work he has performed for this committee and for his 
tireless efforts to support our soldiers, sailors, airmen, and marines. 
Les has been a consummate professional in the performance of his 
responsibilities for this committee. Les has shepherded the difficult 
annual defense authorization process for many years and has never 
forgotten the true beneficiaries of the committee's work--our great 
Nation and the men and women who defend our freedoms. The work of this 
committee has traditionally been a bipartisan effort. It is staff like 
Les Brownlee who hold the committee to this tradition.
    Many of the challenges facing today's nominees cannot be solved 
overnight or, I suspect, in the near future. Many of the problems 
facing the military will require hard choices, choices that have either 
been deferred or poorly handled. As Les knows from his service on this 
committee, I have serious reservations about how the Department of the 
Army is budgeting to support this transformation effort. For example, 
the latest reports on the Army's 2003-2007 program objective memorandum 
(POM) indicate significant funding shortfalls. It has been reported 
that the Army will terminate 19 programs--and restructure another 12--
due to this funding shortfall.
    Reports are that the Department of the Army--despite receiving 
nearly $60 billion more in funding through 2007 than previously 
expected--will have approximately $115 billion more in unpaid bills 
through the POM. These unpaid bills will impact the service's attempt 
to modernize its Legacy Force, meet near-term requirements, and 
aggressively support the science and technology investment needed to 
field an Objective Force. As Les knows, I have serious reservations 
about the Army's expensive Interim Force acquisition strategy and how 
this force will relate to the Objective Force. That being said, I am 
glad to see that the President has nominated Les for this important 
position as the Department of the Army will need to make critical 
decisions in the near future. I am hopeful that Les Brownlee will play 
a strong role in the efforts to grapple with these problems.
    With respect to Mr. Teets, I am glad that the President has 
nominated a candidate who brings a wealth of experience from the 
private sector to this important position. I am also concerned with the 
costs of our tactical aviation programs and the overall affordability 
of simultaneously purchasing the Navy's F/A-18E/F, the Air Force's F-
22, and the multi-service F-35 Joint Strike Fighter. These expensive, 
short-range aircraft don't address one of the biggest problems facing 
our military, the denial of access to a theater of conflict or war. I 
hope that Mr. Teets will keep an open mind to exploring the 
capabilities that unmanned platforms may offer our combatant 
commanders. I also hope that Mr. Teets will look long and hard at the 
issue of Low-Density/High-Demand assets. Too many times we have heard 
that our forces today lack the proper levels of platforms or assets to 
effectively prosecute a military campaign. As is true with the Army, it 
is unlikely that these problems or issues facing the Air Force can be 
solved immediately. However, your ability to focus on these issues will 
be immensely important.
    Dr. Klein, as the Executive Director of the Amarillo National 
Research Center, brings a knowledge of policy issues that will greatly 
help him address many of the emerging threats that are facing the 
United States. Dr. Klein's expertise in nuclear activities--
particularly radioactive waste disposal, thermal analysis of nuclear 
shipping containers, and nuclear weapon dismantlement--will be a 
tremendous benefit to the Bush administration. In addition, his 
knowledge of ongoing United States-Russian efforts to safeguard and 
secure weapons-grade nuclear material will be a tremendous asset to the 
position for which he has been nominated.
    Again, thank you for scheduling this hearing and I look forward to 
supporting these nominees.

    Chairman Levin. Senator Hutchison, please proceed.

STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I want to say 
that this is, I know, a moving time for the Armed Services 
Committee, and as a former member of this committee who served 
personally with Les, I can understand what a great loss it is. 
I sympathize with all of the people who have mixed emotions 
about whether he can do more here or more there, but he has 
made a decision, and we are going to stick with it.
    I want to talk a moment about Les, because he is a native 
Texan. I want to add to what has been said about his later 
career by Senator Warner and Senator Levin. He is an Odessa 
boy. His father was actually a legend in West Texas, because he 
was known as the one person who could handle the most dangerous 
explosives in the oilfields. If you had a real problem you 
called Les' father. So Les decided to take the safer job in the 
infantry in Vietnam. [Laughter.]
    Of course his record in Vietnam is known to all, and what a 
hero he really was, a highly decorated veteran.
    I want to say that this is a man who has given his life to 
public service. We have a Texas saying for his nomination, and 
that is, it's a done deal. I cannot imagine anyone not 
supporting him. It will be a great comfort to all of us to know 
that he is over in the Pentagon, working in the Department of 
the Army as the number two there, under the Secretary, bringing 
his expertise in the field at a very important time in our 
country, and so I certainly support Les.
    I also am here to introduce Dr. Klein. Dr. Dale Klein has 
been a friend of mine for a long time. He is one of the great 
intellectuals and original thinkers in our country, and on 
nuclear issues especially. His nomination to be Assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs is most appropriate, as we are facing the 
issues of this war on terrorism.
    As reports of Al Qaeda's attempts to obtain weapons of mass 
destruction proliferate, the need to fill this key position 
grows exponentially with each passing day. Dr. Klein's wealth 
of knowledge and experience more than qualify him for this 
position.
    The University of Texas has had a long association with the 
United States Army, doing some major innovative research for 
the U.S. Army. Dale Klein has been very much a part of that. 
Not only is he a renowned expert in nuclear issues, he has been 
elevated at UT as vice chancellor for special engineering 
programs in the UT system, as well as serving as a professor in 
the Department of Mechanical Engineering's nuclear program 
since 1977. He has all of the background to be the advisor to 
tell us how we can deal with the potential of nuclear, 
biological, or chemical warfare by these terrorist networks, 
which we are now exploring.
    He is a distinguished fellow of the American Society of 
Mechanical Engineers and the American Nuclear Society, so I 
cannot think of a better person who could bring expertise and 
creative thinking than Dr. Dale Klein. I worked with him very 
closely in his position with the Amarillo National Research 
Center, which does the research on plutonium and nuclear 
weapons dismantlement, so I know that he has the range of 
experience needed to stop proliferation. He can advise us on 
what we can do to strengthen our own nuclear arsenal and make 
sure that what we keep is viable and efficient, so that if we 
ever got in a worst case scenario, that we would have that 
weapon ready to go.
    So it is with great pleasure that I support the nomination 
of my friend. I know from personal experience that he will do a 
great job, and I thank him for taking this job and adding 
another phase in his public service.
    Thank you, Mr. Chairman.
    Senator Warner. Senator, we thank you. That was an 
excellent statement and, having interviewed Dr. Klein in some 
depth, I certainly wish to associate myself with your remarks.
    Senator Hutchison. The President has certainly upgraded the 
expertise with Les Brownlee and Dr. Dale Klein, who are the two 
I know, and I am very pleased that you are holding this hearing 
so that we can expedite their nomination. Thank you, Mr. 
Chairman.
    Chairman Levin. Senator Hutchison, thank you so much for 
coming by. I know how much it means to our nominees to hear 
those words. Thank you.
    Senator Warner. Mr. Chairman, could I say a word on behalf 
of Mr. Teets? I had an opportunity to visit with him, and I 
would like to say a few words. He came up through what I regard 
as the old aristocracy that there was at one time in the 
aerospace defense business. He served under some of the 
toughest taskmasters, Tom Pownell, with whom I was associated 
for 40 years, and Norm Augustine. If you can survive their 
tests and be seated here today before us, you have some real 
mettle, mister, and your qualifications earn you the position 
of Under Secretary.
    As I commented a few minutes ago, after Senate confirmation 
of your nomination, I think you will find this position one of 
the most challenging chapters of your career.
    Senator Allard. Mr. Chairman, may I add just a few comments 
to the Ranking Republican, Senator Warner?
    Chairman Levin. Senator Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Teets is a graduate of the University 
of Colorado and a Colorado native. As Senator Warner mentioned, 
he does bring to his responsibilities a great deal of 
experience on the private side and in the industrial sector he 
is intimately familiar with those systems. With his 
responsibilities towards the NRO I think we could not have come 
up with a better nominee, and so I just wanted to throw my two 
bits in and talk a little bit about Mr. Teets and the expertise 
he is bringing to this position. Mr. Chairman, I offer my 
prepared statement for the record.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you Mr. Chairman,
    I want to thank each of you for coming here today and for your 
willingness to accept a tremendous amount of responsibility at one of 
the most important and challenging periods in our country's history. I 
am confident that all of you are up to the task and will serve this 
Nation well. I want to thank you in advance for the work you are about 
to embark on, as I am sure that you will all be successful.
    Dr. Klein, Nuclear, Chemical, and Biological Defense Programs have 
been of great interest to me and this committee for some time. So much 
so, Senator Warner and Senator Levin formed the Emerging Threats and 
Capabilities Subcommittee to address issues related to these programs. 
The recent events have proven that to be a wise decision. You are 
taking on this responsibility at a time of renewed interest in the 
American public. While this may provide you some challenges, it will 
provide you some opportunities as well.
    Also, I am very interested in the Chemical Demilitarization 
Program, specifically at the Pueblo Depot. I am very concerned about 
the pace and safety of the destruction and cleanup of the chemical 
weapons stored at the site. DOD has yet to select a technology to 
destroy the weapons and I would encourage you to use your new position 
to move the process forward in selecting the safest and most effective 
technology. I wish you luck in your efforts.
    Mr. Teets, it will certainly be beneficial to the Pentagon to have 
another Colorado native and Colorado University graduate serving. Your 
knowledge and background in running a successful business will serve 
you and this Nation well. Additionally, your expertise in the 
capabilities of the space industry will become more and more important 
in the years ahead. I am very pleased to have someone with your 
credentials as the Under Secretary of the Air Force. Good luck.
    Mr. Brownlee, it has been a great pleasure working with you on this 
committee. The work that you have done here has been absolutely 
outstanding. You are a proven performer, not only on this committee, 
but for many years as a soldier and as an Army leader. I have no doubt 
that, once again, you will serve the Army and this Nation proud and 
with great distinction in your new role. Your leadership and steady 
hand will be missed by every member on this committee and I wish you 
great success and I look forward to working with you.

    Chairman Levin. Senator Allard, thank you very much. The 
record will be kept open for any other opening statements that 
anyone might want to place in the record.
    Senator Nelson.

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Mr. Chairman, I want to say that as a new 
member of this committee I have been so impressed with the 
professionalism of this committee. Clearly that reflects the 
leadership which is the two of you, but it also reflects the 
leadership of the staff directors, so it is a pleasure for me 
to be here to help this process along.
    I also want to say that I second, Senator Warner, your 
comments about Mr. Teets. In my former life I was involved with 
those two individuals you talked about, Tom Pownell and Norm 
Augustine, and they were good, hard-driving taskmasters, and 
anyone that can survive that has done a good job.
    Chairman Levin. Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Mr. Chairman, I would like to express my 
appreciation for these three nominees and their willingness to 
serve our country. They have great backgrounds and integrity, 
and I think will do an outstanding job for our country.
    I think particularly I have to note, Colonel Brownlee, how 
much I have enjoyed working with you on this committee. It has 
been a pleasure. As a new member, your wisdom and insight were 
very helpful to me. I know you have a comprehensive 
understanding of America's defense structure both as a combat-
decorated veteran, as a person who served in defense before and 
now, with so many years on this committee. I cannot think of a 
person who could bring more to the job than you.
    The main thing that you have brought to this committee is a 
sense of integrity and confidence among all the staff and all 
the Senators. It has been a unifying and beneficial atmosphere 
that you helped create, and I appreciate that. I think all of 
us do, and I am honored, pleased, and thrilled that the 
President has given you this great honor, and I know you will 
do a great job.
    Mr. Chairman, I would offer a statement and some questions 
for the record.
    [The statement of Senator Sessions follows:]
              Prepared Statement by Senator Jeff Sessions
    Mr. Chairman I want to thank you for calling this hearing to 
consider these nominations for the positions of Under Secretaries of 
the Army and Air Force, and Assistant to the Secretary of Defense for 
Nuclear and Chemical and Biological Defense Programs. Senator Warner, 
this must be a bitter-sweet moment for you. You may be losing an 
outstanding staff director, but the Army will gain an outstanding Under 
Secretary.
    These are indeed important positions. Mr. Teets, I look forward to 
hearing from you your vision for the Air Force and the aircraft it 
needs, especially in light of our combat operations over Afghanistan 
where forward basing rights seem to be at a premium.
    Mr. Klein, the position of Assistant to the Secretary of Defense 
for Nuclear and Chemical and Biological Defense Programs has taken on 
an importance that few could have imagined prior to the cowardly use of 
anthrax as a weapon of terror. We have seen these terrorists would not 
hesitate from using these weapons of mass destruction. I look forward 
to hearing from you what the course ahead is to protect our service 
members and our Nation as a whole from these despicable acts.
    Finally, Colonel Brownlee, as it has already been said by others, 
the President could not have picked a finer person to be the next Under 
Secretary of the Army. From your heroism on the fields of combat in 
Vietnam, through your outstanding experience as Military Executive to 
the former Under Secretary of the Army, James Ambrose, and your superb 
leadership of the Armed Services Committee staff, to your education in 
Alabama with a Masters Degree of Business Administration from the 
Auburn University you have the record to prove you will superbly fill 
the role of Under Secretary of the Army.
    I also want to take this moment to thank you for 3 years of superb 
support you and your staff has provided to me since I have become a 
member of the Armed Services Committee. While we may not have always 
agreed, I always appreciated your well thought-out advice. I know 
Secretary White, the Army and the United States will also benefit from 
your advice and superb work.
    Mr. Chairman, thank you.

    Chairman Levin. Thank you, Senator Sessions.
    Senator Akaka.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. Mr. Chairman, thank you for this opportunity 
to add my welcome to the nominees this morning, and in 
particular Mr. Les Brownlee along with other members of this 
committee. I really enjoyed working with him as staff director 
here for this committee over the years, and I look forward to 
continuing to work with you, Les, upon your confirmation as 
Under Secretary of the Army. I want to also welcome Dr. Klein 
and Mr. Teets this morning. I have reviewed your questions and 
biographies, and I want to associate my remarks with my 
colleagues here this morning. You are all well-qualified to 
serve in the important positions which you have been nominated 
for, and I want to wish all of you well.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Akaka.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Mr. Chairman, since everyone has spoken I 
did not want my silence to be misinterpreted as a lack of 
support. [Laughter.]
    Let me say, Mr. Teets, I also went to the University of 
Colorado 10 years before you did, and we could probably share a 
few stories about that. I think it is sometimes not emphasized 
how significant it is to get people in positions like you are 
going to be in and have this tremendous background in the 
private sector. You would bring a different perspective, and I 
am sure that will serve very well. Dr. Klein, I enjoyed our 
visit very much, and I am looking forward to working with you.
    Les, I am not articulate enough to say anything different 
than has already been said about you, so let me just echo every 
wonderful thing that has been said on your behalf.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Bunning.

                STATEMENT OF SENATOR JIM BUNNING

    Senator Bunning. Since everyone is getting to say something 
in their opening statement, as the junior member of the 
committee I am going to use just about a minute or 2.
    Senator Warner. You take all the time you want, Senator.
    Senator Bunning. Thank you very much. I want to welcome you 
and your families to this hearing, because I know how important 
this day is to each and every one of you. Les, I would like to 
also thank you for your long and meritorious service to this 
committee and the country. Things will be a little harder here 
because of your leaving, but maybe you can take them across the 
river and make them easier.
    You all have great challenges ahead of you in normal times. 
These positions are nominations that entail significant 
responsibility. During war they hold even more significance. I 
have confidence you will all carry these burdens out as no one 
else can do. We are counting on you to do that, because, Dr. 
Klein, I know that we have some problems in Kentucky in 
relationship to the job that you are assuming.
    I wish each and every one of you Godspeed. You are going to 
need it.
    Thank you.
    Chairman Levin. There seems to be a strong consensus to 
want to see you leave, Les. [Laughter.]
    We will now ask each of the nominees a series of questions. 
You have already responded to our prehearing policy questions, 
our standard questionnaire. These responses will be made a part 
of the record. The paperwork on each of the nominees has also 
been received. That paperwork will be reviewed to make sure it 
is in accordance with the committee's requirements.
    There are several standard questions we ask every nominee 
who comes before this committee. Before I ask you those 
questions, I will simply note that in your response to the 
advance policy questions you agreed to appear as a witness 
before congressional committees when called, and you have 
agreed to ensure that briefings, testimony, and other 
communications are provided to Congress.
    Now I will ask you the following questions. Have you 
adhered to applicable laws and regulations governing conflict 
of interest? Dr. Klein.
    Dr. Klein. Yes.
    Mr. Brownlee. Yes, sir.
    Mr. Teets. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process? Dr. Klein.
    Dr. Klein. No, sir.
    Mr. Brownlee. No, sir.
    Mr. Teets. No, sir.
    Chairman Levin. Will you ensure the Department complies 
with deadlines established for requested communications, 
including prepared testimony and questions for the record in 
hearings? Dr. Klein.
    Dr. Klein. Yes, sir.
    Mr. Brownlee. Yes, sir, I will.
    Mr. Teets. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests? Dr. Klein.
    Dr. Klein. Yes, sir.
    Mr. Brownlee. Yes, sir, I will.
    Mr. Teets. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Dr. Klein. Yes, sir.
    Mr. Brownlee. Yes, sir, they will.
    Mr. Teets. Yes, sir.
    Chairman Levin. Let me now ask each of you to give us any 
opening statements you might have, and to also introduce any 
family members or friends you might have here.
    Dr. Klein.

  STATEMENT OF DR. DALE KLEIN, NOMINEE TO BE ASSISTANT TO THE 
 SECRETARY OF DEFENSE FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL 
                        DEFENSE PROGRAMS

    Dr. Klein. Thank you, Mr. Chairman. Good morning. My name 
is Dale Klein. I have no statement for the record, but with 
your permission I would like to make a few opening remarks.
    Mr. Chairman, Senator Warner, members of the committee, it 
is an honor to appear before you today as President Bush's 
nominee to the Office of Assistant to the Secretary for Defense 
for Nuclear and Chemical and Biological Programs. I would like 
to thank the President and Secretary Rumsfeld for their 
confidence and support. Further, I would like to thank Senator 
Hutchison for her kind words of introduction. Last, I would 
like to thank Mr. Peter Aldrich for his support of my 
nomination.
    I especially thank this committee for their support of the 
men and women in all of the Armed Services. If confirmed, I 
will work with this committee to address the many challenges 
that together we will overcome.
    I grew up on a small farm near Tipton, Missouri. I attended 
the University of Missouri-Columbia, where I studied mechanical 
engineering. I earned a Ph.D. with a specialization in nuclear 
engineering. For my professional life I have been associated 
with the University of Texas at Austin as professor of 
mechanical engineering in our nuclear and radiation and 
engineering program. I have worked extensively with the Pantex 
plant near Amarillo, Texas, where hands-on nuclear assembly and 
disassembly take place.
    As associate dean for research, I have supervised a variety 
of research units, including those in chemical and biological 
research areas. I have traveled to Russia a number of times, 
and have worked with Russian nuclear engineers to secure their 
nuclear materials. Currently, as Senator Hutchison indicated, I 
served as vice chancellor of special engineering programs for 
the University of Texas systems.
    If confirmed, I will have a number of key responsibilities. 
If confirmed, I will work closely with the National Nuclear 
Security Administration to ensure that our nuclear weapons 
stockpile is safe, secure, and reliable. I will oversee 
effective chemical and biological defense programs. I will work 
to counter the proliferation of weapons of mass destruction, 
and I will oversee the safe and secure demilitarization of our 
aging chemical weapons stockpile.
    I will not be able to do this alone. My wife, Becky, is one 
of three commissioners of the Texas Public Utility Commission, 
and is a Major in the Air Force Reserves. Unfortunately, due to 
her responsibilities she is not able to be with us today. Along 
with her support, I am certain I will need the support of many 
other dedicated public servants and the support of this 
committee. I pledge to you to do my best efforts to address the 
many challenges we face in winning the war on terrorism and 
assuring homeland security.
    Thank you very much.
    Chairman Levin. Thank you, Dr. Klein.
    Mr. Brownlee.

 STATEMENT OF R.L. BROWNLEE, NOMINEE TO BE UNDER SECRETARY OF 
                            THE ARMY

    Mr. Brownlee. Sir, with your permission I will introduce 
the members of my family here. My son John, who came up from 
Roanoke, my daughter, Tracy and her husband, Clay, and their 
daughter Kyla, who is 2\1/2\ going on 10. [Laughter.]
    Chairman Levin. Is she the one you have a picture of in 
your office?
    Mr. Brownlee. Yes, sir. There are actually two of them, 
John's wife Lee Ann, and his daughter, Thompson, who is 1\1/2\, 
could not be here this morning. Lee Ann is the anchor for the 
evening news in Roanoke for Channel 10, and they are in a 
ratings period and so she could not get away. [Laughter.]
    Chairman Levin. That is why Senator Warner carries Roanoke. 
[Laughter.]
    Mr. Brownlee. When we get the 2\1/2\ year old together with 
the 1\1/2\ year old, it is sort of like mixing nitric acid with 
glycerine.
    Senator Warner. Mr. Chairman, Les is too modest, and his 
son likewise. His son has just been appointed by President Bush 
as United States Attorney for the Western District of Virginia. 
He had a distinguished career in the Army himself and earned 
his position through merit.
    Chairman Levin. Thank you. Les.
    Mr. Brownlee. Mr. Chairman, I do not have a written 
statement. I have a few remarks I would like to make, if I can 
get through them before this committee.
    Mr. Chairman, Senator Warner, Senator Thurmond and other 
members of the committee and Senator Hutchison, I cannot thank 
you enough for the kind words you have said about me. I feel 
very undeserving, but I just cannot thank you enough for what 
you have said. It is indeed an honor for me to appear before 
this committee for the purpose of this hearing. I have to say 
that as I reviewed the qualifications of these two very 
distinguished gentlemen sitting on each side of me, I was 
reminded of something John Hamre once said. He said he felt 
like a mule who had been entered in the Kentucky Derby. 
[Laughter.]
    I am deeply honored, Mr. Chairman, to have been nominated 
by President Bush for this important position at this crucial 
period in our history. I would also like to thank Secretary 
Rumsfeld, Secretary White, and other members of this committee 
who recommended my nomination to the President. I pledge that 
if I am confirmed I will do my utmost to be worthy of their and 
your confidence.
    I would like to express my sincere appreciation to Senator 
Warner for giving me my first opportunity to work in the United 
States Senate as his military legislative assistant almost 18 
years ago, and later for appointment me to this committee's 
staff, and to Senator Thurmond, who made me staff director for 
this committee, and to Senator Warner for allowing me to 
continue in that capacity when he became chairman. I will be 
eternally grateful for the opportunities you have so graciously 
provided me and mainly for your trust and confidence.
    I would also like to take this opportunity to thank all the 
members of this committee for your understanding, your 
kindness, your patience, and your trust. It is through the 
conscientious and diligent manner that you carry on the 
critically important work of this committee in the bipartisan 
manner you do that will ensure its continuing relevance and 
effectiveness.
    I want to thank also my colleagues on the staff, both past 
and present, who serve here on this wonderful committee. Mr. 
Chairman, I know that you and the members of the committee are 
well aware of their professionalism, their dedication, and 
their standards of excellence. Over the years, they have become 
a second family to me. I want to thank them for their tireless 
efforts and their loyalty and support of the vital work of this 
committee. Time does not permit me to thank each of them 
personally by name. I will do that before I leave, 
individually.
    Mr. Chairman, I would also like to thank the members of my 
family, my daughter Tracy, who has excelled in everything she 
has ever done and continues to do so after putting her own 
professional career on hold to be a full-time mom to Kyla, and 
to my son John, who all the members of our family were thrilled 
to watch last Friday as he took the oath of office as the 
United States Attorney for the Western District of the 
Commonwealth of Virginia.
    Mr. Chairman, if I am confirmed I will be returning to the 
Army I have loved and in which I proudly served for 22 years. 
In fact, since my last assignment in the Army was as the 
military executive officer to the Under Secretary of the Army, 
Hon. James Ambrose, if confirmed, I would be returning possibly 
to the same suite of offices I departed almost 18 years ago.
    Our Nation is now in peril, Mr. Chairman, and the dangers 
are not just on the war front, but on the home front as well. 
Our Armed Forces have never failed this Nation, and under the 
leadership of President Bush, and with the guidance and support 
of this committee, they will not fail in this endeavor.
    Mr. Chairman, while I am deeply honored and anxious to 
assume the duties of the position for which I have been 
nominated, if I am confirmed, leaving the United States Senate 
and this committee I have loved and revered, and my fellow 
staff members, will be difficult. I have never failed to 
appreciate the privilege of walking onto the floor of the 
United States Senate, nor the importance of being asked for my 
views and recommendations by members of this committee and this 
body.
    I plan some day to thrill my grandchildren with the stories 
of my heroes, many of whom are sitting here today. While there 
were times when, like others, I may have become temporarily 
frustrated or impatient, I have never grown tired of the 
important work that is done here. I have a host of memories 
which I will carry with me for the rest of my life, of being 
present at meetings with the highest officials in our 
Government to witness discussions of the most important 
national security issues of our day, and fact-finding trips to 
far-flung battlefields, from Panama to the Persian Gulf, 
Somalia, Haiti, Bosnia, and Kosovo, and of 18 separate 
committee markups, floor actions, and conferences.
    Mr. Chairman, I appreciate very much the committee's 
consideration of my nomination. If confirmed, I assure you that 
my first loyalty and consideration in all matters concerning 
the Army will be first and foremost to the individual soldier.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Levin. Thank you so much, Les. Your statement is 
truly a beautiful one.
    Mr. Teets.

 STATEMENT OF PETER B. TEETS, NOMINEE TO BE UNDER SECRETARY OF 
                         THE AIR FORCE

    Mr. Teets. Mr. Chairman, good morning, and with your 
permission I would like to introduce the members of my family 
that are with us today, my wife Vivian, and our youngest son, 
Chris.
    Mr. Chairman, I have no statement for the record, but with 
your permission I would like to make a few brief opening 
remarks.
    Chairman Levin. Please.
    Mr. Teets. Mr. Chairman, Senator Warner, members of the 
committee, it is indeed an honor to appear before you this 
morning as the President's nominee for Under Secretary of the 
Air Force. I would like to thank President Bush for nominating 
me for this position. Also, I thank Secretary of the Air Force 
James Roche for making possible this opportunity to serve, and 
Secretary of Defense Rumsfeld and Director of Central 
Intelligence George Tenet for their support.
    In addition, Senator Warner, I would like to thank you, 
Senator Allard, and Senator Inhofe for your kind introductory 
remarks earlier today.
    I have spent over 35 years working in the space and defense 
world, all of that time in the industrial side. Over the course 
of that time, I have had the great pleasure of working closely 
with many talented and dedicated people in the defense and 
intelligence community. If confirmed, I very much look forward 
to being able to now do some meaningful and important public 
service work to support Secretary Roche as his Under Secretary, 
and also to provide leadership for our vital national security 
space activities.
    Mr. Chairman, if I am confirmed, I will be pleased and 
honored to work with you and this committee to meet the many 
challenges that lie in front of us.
    Thank you very much.
    Chairman Levin. Thank you very much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. As I advised the 
chairman, I am due to open a conference on veterans, on World 
War I to Vietnam and all U.S. conflicts, so I would simply like 
to make a statement to each nominee and perhaps solicit a short 
response.
    First to you, Colonel Brownlee, again to personalize my 
knowledge of the positions which you and Mr. Teets are going to 
take, when the chairman read off the decorations that you won 
in Vietnam it conjured up the memories of my visits to those 
battlefields, fire bases, and aid stations.
    When I was in the position of Under Secretary, collectively 
in the Pentagon we made some misjudgments. I see today in this 
conflict we are engaged in thus far, I do not think there have 
been any misjudgments, but there could come such a time. I just 
hope that knowing you as I do, that you have the courage to 
come forward to your superiors and indeed to the Congress of 
the United States and tell the story from the standpoint of 
that young person in uniform, wherever he or she may be, and 
the risks they are taking.
    This is a difficult challenge our President has had to 
face. There is no alternative to what he has done in this 
conflict, and you have that challenge as well. You and I have 
struggled with various parts of the proposed reorganization of 
the Army many times. I respect Secretary White, but you bring a 
corporate knowledge of that to the Army Secretary, and I think 
you have to give it some very strong leadership, and do it 
quickly.
    I hope that you will commit to come before this Congress, 
because we know you and we trust you and we respect you, not 
that we do not have similar feelings for the other members of 
the Secretariats and the Military Departments. Our President 
and Secretary Rumsfeld are to be commended for searching far 
and wide for the talent they have put together in these 
Secretariats, talent which was unmatched, I think, in previous 
years.
    So I just hope that you will make that commitment, because 
we lost the support of Congress during Vietnam, we lost the 
American public. In the end I am not so sure that we did not do 
a disservice to those of you who were in uniform.
    You are in a position, Colonel, to see that that does not 
happen again. Do we understand each other?
    Mr. Brownlee. We do, sir.
    Senator Warner. Now, Dr. Klein, you are going to take over 
a portfolio that is extremely important. I am going to bring 
out one matter which you and I discussed at length, and that is 
that we are engaged by virtue of the first President Bush in 
not testing our stockpile to determine its credibility. I am 
not suggesting we deviate at this time from that decision, but 
as you continue to monitor how this program to replace testing 
is developed, you have to come and tell us it is on schedule, 
it is funded or underfunded, because we have to move forward as 
quickly as possible to determine if that program is going to 
work. If it does not, then the President and Congress are faced 
with the decision to return to live testing once again in order 
to maintain the credibility of that stockpile.
    Now, that is not a popular decision, but with the 
proliferation taking place in this world, we have no 
alternative but to assure absolutely the credibility of that 
stockpile and its safety. Most particularly to those who have 
to handle those weapons, and the communities that fortunately 
to this date in our country are willing to have them in the 
proximity of where people live.
    We understand each other on that, do we not, that you will 
be forthcoming?
    Dr. Klein. Yes, sir. If confirmed, we will certainly be 
addressing the safety, security, and the reliability of those.
    Senator Warner. To monitor that program?
    Dr. Klein. Yes, sir.
    Senator Warner. Now, Mr. Teets, I presume you will take 
over the major responsibility for the procurement systems of 
your Military Department. Some of the advantages of being Under 
Secretary, you do not have to deal with the press as much as 
the Secretary, you do not have to deal with Congress, and you 
do not have to travel as much as the Secretary. You can get on 
with the work of the Department.
    This Joint Strike Fighter (JSF) is unlike anything in the 
history of the annals of our procurement in this country. It is 
three services, the Air Force, the Navy, and the Marine Corps, 
and you have to be an ombudsman to maintain a political 
balance. Believe me, there are politics in that system over 
there, and you know it. You have seen it from a distance in 
your distinguished career.
    This committee was of the opinion that that contract ought 
to be dual-sourced, but that decision was overridden by the 
Appropriations Committee. Am I not correct in that, Mr. 
Brownlee?
    Mr. Brownlee. Yes, sir.
    Senator Warner. Anyway, I accept it. It is over. It is 
behind us. But the magnitude of this contract is absolutely 
awesome. It is almost like we are at a roulette table and we 
put all of our money on one spot, and you have to make it work. 
If it does not work early on, or there are some problems, you 
must come before Congress.
    Mr. Teets. Yes, sir, I do appreciate your comments, and I 
can assure you that I do understand the size, the magnitude, 
the importance of the joint strike fighter program, and if 
confirmed I would be very pleased to take a strong involvement 
in the program.
    Senator Warner. Thank you very much, Mr. Chairman, members 
of the committee.
    Chairman Levin. Thank you, Senator Warner.
    Les, let me start with you. You have answered some 
questions on transformation. Give us your thoughts on 
prioritizing the requirements of the Army between the Legacy 
Force, the Interim Force, and the Objective Force as to how you 
are going to balance that. How do you see it unfolding? What 
are your thoughts generally on that?
    Mr. Brownlee. Well, as you well know, Senator, the Legacy 
Force is a force that is in place that has to be prepared to go 
to war today. Then, of course, there is the Interim Brigade 
Combat Teams (IBCTs) which make up the Interim Force, and the 
Army is beginning, I believe, to field those vehicles now. I 
would have to check the details of that.
    Then, of course, there is the Interim Objective Force which 
is in the future somewhere, on which there are some science and 
technology moneys being extended now.
    As I look at the question of prioritizing among these, I am 
reminded of a very old division commander who wisely stated 
once that there are no priorities among essentials. I think all 
three of these are essential, Senator, and the trick here is to 
balance the allocation of resources so that we can, in fact, 
proceed with all three in an appropriate way.
    Chairman Levin. You have been intimately involved in the 
discussions about the Interim Brigade Combat Team force 
structure.
    Mr. Brownlee. Yes, sir.
    Chairman Levin. As to how we are going to evaluate whether 
or not that structure closes a presumed gap that is going to 
exist in capabilities that a medium weight force is intended to 
fill, what are your thoughts about that particular process?
    Mr. Brownlee. Yes, sir. My view of this, Senator, as most 
of the members of the committee know, is that the Army found 
itself in a situation where they had the best heavy force in 
the world which was difficult to deploy. They had a much 
lighter force which was more easily deployed but did not seem 
to meet the requirements for lethality and mobility that they 
needed. They then identified this gap in between, which these 
IBCTs, or interim brigades, should fill, and they are in the 
process now of putting those together.
    It is my feeling, Senator, that at some point in time to be 
determined by the Army, or whenever it is appropriate, there 
should be a full operational evaluation of this unit, not just 
the equipment, but this unit. It is my understanding the Army 
intends to do that.
    Chairman Levin. Dr. Klein, you have made reference to the 
stockpile stewardship program both in response to Senator 
Warner and also in response to advanced questions, and you 
indicated, I believe, that you support the stockpile 
stewardship program, is that generally correct?
    Dr. Klein. Yes, sir, Senator.
    Chairman Levin. What are your plans to ensure that that 
program is, number one, closely coordinated, and number two, in 
fact is working and viable? You have seen this up close, and so 
we will be relying on you to give us either assurance that it 
is working, or in the event that you are no longer able to give 
us the assurance, that our nuclear stockpile is secure and 
reliable, that you would then notify us of that. Please give us 
more detail about how you plan to accomplish that.
    Dr. Klein. Well, Senator, if confirmed, as you would 
expect, the safety, security, and reliability of our nuclear 
weapons stockpile is extremely important. I expect to, if 
confirmed, work through the Nuclear Weapons Council.
    There is a program in place where the laboratory directors 
certify the adequacy of the stockpile. If confirmed, my office 
will be very active in discussions with the laboratory 
directors through the National Nuclear Security Agency. We will 
have monthly meetings with the Nuclear Weapons Council to make 
sure that people are informed, and as issues are addressed, 
they will be consulted with the experts in the field, and if 
there are any issues that indicate that these weapons are not 
meeting their requirements, we will certainly inform this 
committee as well as others, and address those appropriately.
    Chairman Levin. You indicated you had been to Russia a 
number of times, so you are obviously familiar with our 
cooperative threat reduction program. I have a two-part 
question: first, give us your thoughts about that cooperative 
threat reduction program. Is it an important program? Should we 
fully fund it?
    Second, are there additional opportunities to do 
cooperative research with Russia through that program with 
nuclear scientists and engineers in Russian nuclear weapons 
complexes?
    Dr. Klein. Mr. Chairman, as you indicated, I have been to 
Russia several times, and I have always come away impressed 
with the diligence that our country has in our scientists, our 
procedures, and our practices. The cooperative threat reduction 
program is extremely important. I think evidences of September 
11 have demonstrated that issues can hit us here in our own 
country.
    Weapons of mass destruction are very serious. We need to 
work with Russia to make sure that the scientists are not 
really releasing information to those that would do us harm, 
and I believe the cooperative threat reduction is a valuable 
program and we should maintain it to the extent that we can.
    Chairman Levin. On the bioterrorism front, what role do you 
think the Department of Defense should play in planning and 
carrying out a response to a bioterrorist threat in the United 
States?
    Dr. Klein. Senator, if confirmed as the Assistant to the 
Secretary for Nuclear, Chemical, and Biological Defense 
Programs, I would certainly provide whatever resources I could 
to respond to events. It is my understanding that the 
Department of Defense is in a support role, and would not 
necessarily be the first responders, but we certainly have 
technologies, equipment, and training that would be beneficial 
to address any event that might occur.
    Chairman Levin. There is a huge role for both coordination 
and providing assistance in that area from the Department of 
Defense. I hope that is going to be at the top of your list of 
tasks when you are confirmed.
    Dr. Klein. Yes, sir.
    Chairman Levin. My time is up.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, Mr. Teets, you have quite an undertaking 
there, and a variety of things to be involved in. In addition 
to the concentration on space, I would like to ask you 
something concerning our depots. We have for quite a number of 
years, as you well know, being on the other side, wanted to 
maintain a core capability in our depots. We went through a 
couple of base realignment and closure (BRAC) rounds where we 
dropped our air logistics centers (ALCs), for example, from 
three down to two, which are operating now. They have the surge 
capacity, but they are operating at a full capacity today.
    However, a lot of them are operating with World War II 
equipment, and I would like to ask you what your feeling is as 
to the role of our depots currently and for the future.
    Mr. Teets. Thank you, Senator Inhofe. I am familiar with 
the air logistics centers from work that I did several years 
ago. I did have an opportunity recently in a luncheon 
conversation with Secretary Roche to talk in general about the 
subject, and I know he believes strongly in maintaining the 
core capability of those three existing ALCs. As it relates to 
the subject of modernization and update he has a strong belief 
that there is a need to have some public-private partnership to 
allow modernization to take place in a cost-effective way and 
in a meaningful way.
    I can tell you that I am in 100-percent agreement with 
Secretary Roche on that subject.
    Senator Inhofe. I appreciate that, and I am going to ask 
you to try, as you look at that change, and keeping in mind 
that most of our modern platforms are maintained in the private 
sector, that there is a reason for core capability. Perhaps you 
would be in the ideal situation to be able to look at various 
creative ways that we can leverage private sector funds with 
our depots and still protect that depot capability, and that is 
what I would like to be working with you personally on.
    Mr. Teets. If confirmed, I would be pleased to do that, 
Senator.
    Senator Inhofe. Great. Thank you very much.
    Les, one thing you are not capable of--I have heard all 
these good things--and that is, giving short answers. 
[Laughter.]
    Let me ask you to try to do that.
    We hear a lot about competition, and you are going to have 
to be faced with some of the problems that are contentious 
right now. I know I have been trying to get pulse fast neutron 
analysis (PFNA) technology used as opposed to just this 
straight x-ray, and I think now, after September 11, we are 
going to be able to successfully do that. However, we have not 
been able to get that competition, and we have tried since 
1994, when I arrived from the House to the Senate.
    But we also hear about the Star Streak versus the Stinger. 
I do not have a dog in this fight, but I am tired of hearing 
reasons why we have to have competition, and yet the excuses 
why we do not. I understand the back pressure problems that are 
posed, but I understand that has also been addressed.
    Do you have any thoughts about that competition?
    Mr. Brownlee. Yes, sir. I do not know all the details of 
what has happened recently, but I have been advised that there 
are some overpressure problems with firing the Star Streak in 
an air-to-air role, and I believe the Army needs to work out 
those problems for safety reasons.
    Senator Inhofe. I think the Apache, that they have worked 
out a way to reduce that back pressure by about 80 percent, and 
I know this is ongoing, but I would like to make a challenge to 
you that we either do or do not have this competition, and quit 
talking about it. I know we can work through that well 
together.
    Mr. Brownlee. Senator, I promise that I will look into it 
and get back to you.
    Senator Inhofe. The other thing that, in terms of 
competition, I am interested in, I had occasion to go to Fort 
Lewis, as you recall, and in fact you and I talked about that 
trip, the competition that is out there with the M-113 track 
vehicle.
    I had my own competition. I did it, and I sat in the back 
of that thing that has been around for 40 years, and then got 
into the more modern vehicle and recognized that there are ways 
of putting a track on that wheeled vehicle, the Interim Armored 
Vehicle (IAV). Senator Warner was talking about the joint 
strike fighter. The Marine Corps is different than the other. 
There is a way of adapting a vehicle.
    I take a differing view of the rest of the committee on 
demanding that we have some $28 million worth of side-by-side 
testing and competition in that, because when you ride in both 
of them it is like competing a horse with a Jeep. They are 
apples and oranges.
    I would like to have you use your expertise that you have 
had on this committee to get us off this high spot, and if we 
can use the $28 million more effectively to buy a larger number 
of these, perhaps do this.
    Do you have any thoughts on that particular competition?
    Mr. Brownlee. Sir, I have certainly been involved in those 
debates. I have discussed that both with members of this 
committee and with people in the Army. I certainly believe that 
the Army needs to have the full knowledge of the operational 
combat capabilities of the vehicles within its own inventory 
that at least appear to meet those requirements.
    I also believe that if the Army can provide that 
information to the committee in a timely and satisfactory way, 
without conducting a test, then the committee could reconsider 
that.
    Senator Inhofe. I have no doubt in my mind that you have 
ridden in the 113.
    Mr. Brownlee. Yes, sir. I commanded battalions with them.
    Senator Inhofe. Have you ridden in the IAV?
    Mr. Brownlee. Yes, sir.
    Senator Inhofe. Lastly, Mr. Chairman, I would like to ask 
Dr. Klein, if you were to say there are three most important 
nuclear issues today, what would those three be?
    Dr. Klein. Well, Senator, I think the most important issue 
that needs to be addressed in our nuclear weapons stockpile is 
our aging stockpile. Those devices have been around for quite 
sometime, and as Senator Levin indicated there is a stockpile 
stewardship program, so the first priority I would say is 
addressing the aging stockpile.
    The second issue I have been concerned with a number of 
times is the retraining of the young people today, certainly in 
nuclear fields. Being in education, we have not seen a lot of 
young people enter that profession. We certainly need to make 
sure that the Department of Defense has a program to replace 
retiring individuals in the technical fields.
    Then lastly, I would say the important thing is budget 
prioritization.
    Senator Inhofe. Thank you very much.
    Chairman Levin. Thank you. Senator Bunning is next on the 
early bird basis.
    Senator Bunning. Thank you very much, Mr. Chairman.
    Dr. Klein, I would like to explore with you the problems at 
Bluegrass Army Depot. Your duties, if confirmed, will include 
ensuring the safety and secure demilitarization of our chemical 
weapons stockpile. Because of the chemical weapons located at 
the Bluegrass Depot in Kentucky, this is an area that I am 
particularly concerned with.
    So far, the Army has done a poor job convincing the 
population near the depot that incineration is the safest way 
to destroy these weapons. Congress has mandated that a review 
of alternative technologies be conducted to ensure that the 
safest method be used to destroy these chemical weapons. This 
review, which is ongoing, must be completed before a decision 
about how to destroy these weapons is made for the Bluegrass 
facility. Will you commit to taking a very hard look at the 
current demilitarization program to ensure that it is safe and 
effective?
    Dr. Klein. Senator, if confirmed, I will absolutely give 
you that promise.
    Senator Bunning. Will you ensure that both the letter and 
the spirit of the requirement for alternative technology review 
are fulfilled before any decision about how to destroy the 
chemical weapons at Bluegrass is made?
    Dr. Klein. Yes, sir.
    Senator Bunning. Will you ensure that the concerns of the 
citizens around the depot are dealt with before the chemical 
demilitarization begins?
    Dr. Klein. Yes, sir.
    Senator Bunning. Will you commit to working closely with my 
staff and with Senator McConnell's staff to ensure that these 
concerns are addressed?
    Dr. Klein. Yes, sir.
    Senator Bunning. Les, I am going to ask you something that 
has been batted around around here for a while.
    As a result of the September 11 attack there have been some 
calls, including right here in our committee, to review posse 
comitatus, the law restricting the use of the military for 
performing law enforcement functions. Do you believe that we 
should change that law, and if so, how?
    Mr. Brownlee. Senator Bunning, I am not sure if it needs to 
be changed or not, but I certainly believe it needs to be 
reviewed in light of the current situation you described. There 
has been some correspondence already between this committee and 
the Secretary of Defense relative to that. My understanding is 
that the President does have authority to use active military 
forces under some circumstances, but there may be other 
circumstances where we need to move to modify that law, and I 
certainly believe it should be reviewed in that context.
    Senator Bunning. I assure you that there are present 
circumstances that military personnel in the 101st Airborne are 
being used as military police in Kosovo, because I just visited 
there. It is not much fun seeing some of the most highly 
skilled soldiers being used as military police, so I think it 
needs to be reviewed, and I hope that your tenure, if 
confirmed, will give it a good look.
    Mr. Brownlee. Yes, sir.
    Senator Bunning. Given the demonstrated capability of 
someone to conduct an anthrax attack against us, do you believe 
we should accelerate the National Guard's deployment of the 
weapons of mass destruction civil support teams?
    Mr. Brownlee. Senator Bunning, as you might know, I am a 
very strong supporter of those teams. That whole thought 
originated within this committee, and this committee has 
strongly supported it. I certainly believe that they should be 
equipped, trained, and maintained properly, and in the context 
of doing that, if we can accelerate to a number that can give 
nationwide coverage, not necessarily one in each State, but 
nationwide coverage, then I believe we should proceed in that 
direction.
    Senator Bunning. Thank you. I have a question for Mr. 
Teets. Yesterday's Washington Times reported that the Air Force 
was resisting the transfer of munitions kits to the Navy for 
attacks on Afghanistan. Today's Inside the Pentagon stated that 
the Times report was completely wrong, and that the Air Force 
arranged for this transfer nearly 2 weeks ago.
    Whatever the correct answer, will you commit to working 
with the other services to ensure that our mission gets 
accomplished without damaging interservice rivalries?
    Mr. Teets. If confirmed, I will be very pleased to do that, 
yes, sir.
    Senator Bunning. So far, in our war against the terrorists 
and their sponsors, most of the air attacks have been made by 
Navy carrier-based strike aircraft and Air Force long-range 
bombers. Air Force strike aircraft have not yet played a large 
role in this fight because of the lack of land base close 
enough to the fight.
    Some have claimed the lesson of this is that we should 
reduce our reliance on Air Force strike aircraft. In past 
conflicts, some claimed that the lessons of that conflict were 
that we should rely more heavily on Air Force strike aircraft. 
Would you agree that the true lesson is that every conflict has 
different requirements and that the United States needs to 
maintain balanced capability, air, naval, and ground forces 
able to fight and win across the complete spectrum of a 
conflict?
    Mr. Teets. I would certainly agree with that statement, 
yes, sir.
    Senator Bunning. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Bunning.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I have a full 
statement that I would like to have put in the record, and 
during the introductory remarks I did not make that full 
statement. I wanted to recognize Mr. Teets at that time, but I 
also want to recognize all three members of this panel.
    It has been a pleasure to work with you, Mr. Brownlee. I 
look forward to working with all three of you, not only because 
you are involved in issues and areas that are important to our 
country, but also important to the State of Colorado. My staff 
and I will be visiting with you on a fairly routine basis, as 
well as through the subcommittee assignments that I have here 
on this committee. Along with Senator Warner I would appreciate 
your honest and forthright comments as we move forward.
    Dr. Klein, one observation I have made with respect to your 
position is that it has been vacant for 3 years. This is a 
position where I think there needs to be some strong 
leadership, particularly in the cleanup of the chemical 
demilitarization programs, I think that is really important. We 
have some priorities in Colorado, just like Senator Bunning 
does in Kentucky, and I would ask that you do everything that 
you can to expedite the decision process.
    I think both of us feel we need to move forward with the 
decisionmaking process just for the sanity of the local 
communities, and so that we can move on with the other business 
facing this country. I have questions that I am going to direct 
mainly to you, Mr. Teets, because of your responsibilities. One 
of those that I wanted to direct to you is my view of the 
National Reconnaissance Office (NRO) as a result of having 
served on the NRO commission. That is that they have evolved 
from a very advanced thinking group that was pushing technology 
right out front, to one more of a maintenance and sort of a 
marginal replacement organization.
    One of the things that came out in our discussion on that 
commission was that they need to become more revolutionary in 
their technology thinking and carry on with that highly 
classified heritage that was in the fifties, sixties, and 
seventies. I would like to know what kind of thoughts you have 
about the organization divesting itself from the care, feeding, 
and incremental upgrade assistance, and how you think that may 
fit into a cutting edge model.
    Mr. Teets. Thank you, Senator Allard. I have had the good 
fortune of working closely with the NRO for well over 30 years 
now, and it would be my observation that they have been leaders 
indeed in developing new technology, and have made some 
wonderful breakthroughs in the mission areas that they pursue.
    I also want to mention that I have read the report put out 
by the NRO commission and appreciate it. I think an excellent 
job was done in that review.
    I would say that as time has progressed there have become a 
number of systems that require continual maintenance and 
operation activity that perhaps seem to have detracted from 
some of these scientific breakthrough technology developments 
that the NRO has formerly done. I am not 100 percent current 
with all the things that are going on within the NRO right now, 
but if confirmed, I can assure you that I will get on board in 
a very rapid way and would be more than pleased to come back to 
you with my personal assessment of that subject.
    Senator Allard. I think there is a question out there as to 
whether they should divest themselves of the routine management 
stuff so they have more personnel and time to devote to the 
high technology.
    Mr. Teets. I think it is a very valid question that 
deserves a solid answer. I would also say that one of the 
recommendations that came out of the National Security Space 
Commission dealt with the idea that there should be some best 
practices commingling between NRO and the Air Force and other 
service-based programs.
    The Space Commission implementation memorandum that came 
out from Secretary Rumsfeld's office on October 18 was a very 
strong first step towards putting in place mechanisms to really 
use best practices across our national security space programs.
    Senator Allard. Another area I want to discuss with you is 
the area of commercial imagery. I have been an advocate of the 
use of more commercial imagery. I think that we have some 
routine needs out there that really do not need to be used by 
some of our more highly technical secret parts of our 
information-gathering, and the Director of the NRO, as well as 
the Director of the National Imagery and Mapping Agency (NIMA), 
have both sought to develop greater reliance on commercial 
imagery in the last year, but it just has not been funded in 
the budget request.
    In your view, what important role can commercial imagery 
play in the future, as we seek to modernize and revitalize the 
imagery intelligence system?
    Mr. Teets. Senator Allard, I am familiar with commercial 
imaging systems to the extent that I was very much aware of 
Space Imaging, Inc., and the activity they had with their 
Iconos satellite, and I think it does provide high quality 1-
meter resolution kinds of imaging.
    In my opinion, I think that there are ways for the 
intelligence community to make use of that, and again, I have 
not had recent or up-to-date discussions with people at NIMA or 
in the NRO on this subject and would want to seek first from 
them their understanding on this subject. If confirmed I would 
be happy to do that early on and get back to you on that as 
well.
    Senator Allard. Actually, the commercial imaging is going 
down to a 1/2 meter now.
    Mr. Teets. To some extent, that almost generates a concern 
perhaps, a concern over control of the product. You are 
working, I think, a very good question and, as I say, if 
confirmed, I would be happy to look into all aspects of 
commercial imaging and its relationship to the NRO and get back 
to you with solid answers.
    Senator Allard. I was interested in that on the 
Intelligence Committee and in my role on the Subcommittee on 
Strategic here at the Committee on Armed Services.
    Finally, we have both airborne and spaceborne 
reconnaissance efforts, and it appears to me that at times some 
of these functions overlap, although I think we are getting 
better at coordinating and feeding them off one another, and in 
your view, can and should we improve this integration and 
coordination between space and air-based reconnaissance, or do 
you think we are in pretty good shape?
    Mr. Teets. I think historically we have not done a good job 
on that subject, but I think it has been improving over time. 
However, I would say that it is such a vitally important item 
that it is an item that we ought to continue to drive hard on 
and once again I would say that, if confirmed, that is a 
subject that I would want to attack with some vigor.
    Senator Allard. I guess we had the same problem there. It 
is like the joint strike fighter. We designed that so it can be 
universally used and cut down on maintenance cost and 
operational cost, and supplies and parts, but in some ways we 
find the Army, the Navy, and the Air Force all in the space 
program, and I think we need to work more closely with each one 
of those services. They each have their specific needs, and 
they are pretty specific to each one of those, but I think we 
need to seek for more continued cooperation between those so we 
can avoid as much duplication as we possibly can in that area.
    Mr. Teets. Yes, sir, I agree with that.
    Senator Allard. Dr. Klein, we have the NNSA, the national 
security laboratories. I am curious to know what thoughts you 
may have on the role of our laboratories in our fight against 
terrorism, and what we can do to secure their own boundaries so 
that we do not have incursions into those laboratories.
    Dr. Klein. Senator, if confirmed, I certainly would like to 
meet with General Gordon and review the security programs they 
have in place, and NNSA is getting established. They have been 
about a year-and-a-half in operation.
    I have been impressed with the technical capabilities of a 
lot of the laboratories. They have a lot of very well-known 
experts in the field, but I do know that there have been some 
security concerns in the laboratories. They also have a wide 
body of expertise, and so I would want to meet with General 
Gordon as soon as reasonable, if confirmed, to talk about how 
the labs can be better utilized.
    Senator Allard. Mr. Chairman, my time has expired. Thank 
you.
    Chairman Levin. Thank you, Senator Allard.
    Mr. Teets, a couple of questions for you, and then I will 
be done.
    The Space Commission recommended that the Defense 
Department improve the career path for space professionals in 
the military services, and they viewed this as necessary for 
having the requisite Government cadre of professionals that 
would be needed to deal with the various challenges that are 
going to be faced. Do you have any specific proposals as to how 
the Air Force could improve the career path for its cadre of 
space professionals?
    Mr. Teets. Mr. Chairman, I have read through the Commission 
on National Security report, and I agree that that was an item 
that they addressed with some energy. I do not have specific 
proposals that I would propose to you right now, but I would 
heartily underscore the idea that that is an important 
consideration, and it is one that is growing in importance as 
time goes on.
    It will be important not only for Air Force officers but 
Army and Navy officers, others who use space to have a 
professional capability here, and of course that expands over 
into the intelligence community as well.
    I would be very pleased, if confirmed, to have a hard look 
with those organizations to see what programs they have in 
place right now, and what additional programs we could bring 
online that would assist in that item.
    Chairman Levin. What are, in your judgment, the highest 
modernization priorities facing the Air Force today?
    Mr. Teets. I would have to say, on the subject of 
modernization, I am not an expert. However, I do know that the 
average age of aircraft in the United States Air Force is 
surprisingly large and growing. As a matter of fact, I 
understand that there is a proposal now that the Air Force 
really needs on the order of 170 new aircraft procured each 
year for the next 10 or so years in order to start to have a 
meaningful reduction in that trend.
    I again think that modernization is an important subject to 
be addressed, and if confirmed I would be pleased to conduct a 
special review on that subject and get back to you on it.
    Chairman Levin. Thank you. Just the other day we were told 
that there is a proposal that we would, I believe, do another 
reengineering program on the B-52, which will keep it going for 
an additional, and maybe Les can help me out on this, 20 or 25 
years longer.
    This is the proposal from the Air Force, that we extend the 
life of the B-52 further, which means that 10 years or 20 years 
from now, or 30 or 40 years, someone is going to be sitting 
here and saying, do you realize the B-52 is now 80 years old? 
Yet that is what the Air Force is asking us to do, so that 
little footnote in history ought to be, that is right, but that 
is what the request was 30 years ago. Now we are talking in 
2030.
    I just for the record want to state when your nominations 
were received, because our staff has been working very hard on 
these nominations, as they have on all nominations that come to 
the committee. I think it is important to give reassurance to 
our colleagues who are not on the committee that we speedily 
reviewed these nominations.
    Dr. Klein, your nomination was received on October 18, and 
Mr. Brownlee and Mr. Teets, your nominations were received on 
October 30. Since those nominations were received, we need to 
do paperwork and questions have to be sent out and answered, 
your financial reports have to be reviewed, and I just want to 
thank our staff in particular for the speed with which they 
take on these nominations.
    One of our colleagues the other day was making a point on a 
different committee that some of these take an awful long time 
to get here, and I guess in the case of yours, Dr. Klein, as 
Senator Bunning was saying, I think he made reference to the 
point of how long this position has been unfilled.
    Senator Bunning. That was Senator Allard's point. It has 
been 3 years.
    Chairman Levin. It is not unfilled as a result of this 
committee being slow in its response. I want to give the public 
that assurance, because we do move quickly. There are some 
nominations, obviously, where we have questions that need to be 
answered, but we try to move quickly.
    Do you have any further questions, Senator Bunning?
    Senator Bunning. No.
    Chairman Levin. We want to thank you all. Again, we thank 
your families for the contributions that they have made to your 
careers and will be making further to your careers, and we will 
stand adjourned.
    [Whereupon, at 11:05 a.m., the committee adjourned.]

    [Prepared questions submitted to R.L. Brownlee by Chairman 
Levin prior to the hearing with answers supplied follow:]

                                                   November 6, 2001
The Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                     R.L. Brownlee.
Enclosures

cc:
The Honorable John Warner,
Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the Department of Defense 
Reorganization Act of 1986 and related Special Operations initiatives 
for defense reform.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. In my opinion, these defense reforms have been implemented 
and have achieved desired results. Having said that, I believe it is 
important, and consistent with the intent of the reform legislation, 
that the Army continues to assess and modify its operations and 
internal procedures to meet the challenges of a dynamic security 
environment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of these reforms in my view were 
strengthening civilian control; streamlining the operational chain of 
command, improving the military advice provided to the National Command 
Authorities, clarifying authority for combatant commanders, enhancing 
the effectiveness of military operations, and improving the efficiency 
in the use of defense resources.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I fully support the congressional goals reflected in 
the Department of Defense Reorganization Act of 1986 and other related 
defense reform legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the National strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am not aware of any current proposals to amend Goldwater-
Nichols. I do believe that both Congress and the Department of Defense 
should recommend changes as new situations dictate.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Under Secretary of the Army?
    Answer. Section 3015 of Title 10, United States Code, provides that 
the Under Secretary of the Army performs such duties and exercises such 
powers as the Secretary of the Army may prescribe.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Twenty two years as an Army officer and almost 18 years on 
Senate staff.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Under Secretary of 
the Army?
    Answer. I need to better learn the current challenges facing the 
Army--from the Army's point of view.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If confirmed, I will serve as the principal advisor and 
deputy to the Secretary of the Army and will support him in the general 
management of the Department in the fulfillment of his Title 10, United 
States Code, responsibilities. I envision that the Secretary will also 
prescribe specific duties to me that will support his efforts to ensure 
that the Department of the Army is efficiently administered in 
accordance with the policies promulgated by the Office of the Secretary 
of Defense.
    Question. In carrying out your duties, how will you work with the 
following officials:
    1. The Secretary of the Army.
    2. The Chief of Staff of the Army.
    3. The Assistant Secretaries of the Army.
    Answer. If confirmed, I will establish and maintain appropriate, 
professional relationships with the Secretary of the Army, the Chief of 
Staff of the Army, and each of the Assistant Secretaries and the 
General Counsel. I prefer direct and open communication with these 
officials and an environment of cooperative teamwork within the 
Secretariat and with the Army Staff.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Under Secretary of the Army?
    Answer. I agree with the Secretary of the Army that the greatest 
challenge the Army faces is change. The challenges the Army faces are 
similar to those of the other services as we collectively readjust our 
organizations to the threats our country faces. The Army must manage 
and maintain the momentum of changes that will assure our Army's 
preeminence in the 21st century to deter threats and defend our 
national security interest and do it within the joint community.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretaries, the Office of the Secretary of 
Defense, and Congress to ensure the Army meets America's future 
security needs. This includes attracting, training, and retaining 
America's best and brightest, while providing for their quality of life 
and well-being. The Army must maintain balance in allocating its 
resources to remain ready to fight today's battles while transforming 
itself to address future conflict.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Under Secretary of the Army?
    Answer. If confirmed, I would evaluate the specific roles and 
functions within the Office of the Under Secretary of the Army as 
assigned by the Secretary of the Army. It is premature for me to 
identify potential problems at this time.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, after evaluating the specific roles and 
functions within the office of the Under Secretary as assigned by the 
Secretary of the Army, I would recommend appropriate, timely actions to 
address any such problems.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Under Secretary of 
the Army?
    Answer. If I am confirmed, my priorities will, of course, be in 
accordance with the specific roles and functions as assigned by the 
Secretary of the Army. However, my priorities would begin with 
attracting, training, and retaining America's best and brightest young 
men and women, while providing quality of life and well-being for them 
and their families. Another priority would be to achieve balance in the 
allocation of the Army's resources to ensure current readiness while 
addressing the essential needs of the future. I believe it is also 
important to review the Army's acquisition process, and the planning, 
programming, budgeting, and execution process, along with financial 
management systems and processes.
                      headquarters reorganization
    Question. The Army is undertaking an effort to reorganize its 
headquarters by consolidating functions of the Secretariat and the Army 
Staff.
    In your view, how would the proposed reorganization be 
accomplished, and what are the expected manpower savings to be realized 
from that action?
    If confirmed, how would you, with a consolidated staff, balance the 
prerogatives of civilian control with the prerequisite of a clearly 
delineated military chain of command? More specifically, what role 
would the Army Chief of Staff perform if subordinate assistant chiefs 
of staff serve as military deputies to civilian assistant secretaries?
    Answer. I have not been briefed on the specifics of the Army's 
proposed reorganization. I am committed to the principle of civilian 
control of the military services. I support the roles of the Secretary 
of the Army, the Chief of Staff, and other civilian officials and 
military officers of the Army, as prescribed and intended by applicable 
law.
                        national guard divisions
    Question. In your view, what effect have the results of the most 
recent Quadrennial Defense Review had on the mission of the eight 
National Guard divisions of the strategic Reserve?
    Answer. The QDR confirmed the need for the Army to retain a robust 
force in depth. All eight ARNG divisions would, I believe, retain a 
warfighting capability and increase the Army's global responsiveness.
    Question. With the increasing role and responsibilities of the Army 
National Guard in homeland defense, what mission and force structure 
changes do you anticipate for the Army National Guard? More 
specifically, in your view, should the strategic Reserve divisions be 
restructured for a homeland defense mission?
    Answer. The scope of the Homeland Defense mission continues to 
develop. The National Guard has formed unique structure such as the 
Weapons-of-Mass-Destruction Civil Support Teams (CSTs). The Homeland 
Defense mission may require adjustments to existing structure such as 
CSTs, aviation, and military police units. In my view, restructuring of 
the strategic Reserve divisions for Homeland Defense should be examined 
in light of their other missions.
                             transformation
    Question. The Army has embarked on a campaign to transform itself 
to better combat the expected threats of the new century.
    In your view, does the Army have sufficient resources to carry out 
its transformation? If not, what is the magnitude of the shortfall?
    Answer. The Army, along with the other military services, has 
unfunded requirements, the magnitude of which are known to the 
committee. If confirmed, I will work to ensure adequate resources are 
requested by the Army and allocated to accomplish the transformation of 
the Army as well as its other essential missions.
    Question. In the absence of any substantial increases in the Army 
budget, how would you recommend, if confirmed, to the Secretaries of 
the Army and Defense that the Army meet its current and future 
readiness and transformation requirements?
    Answer. The Army must strive to achieve an appropriate balance in 
allocating its resources to ensure current readiness while transforming 
and modernizing itself to address future conflict.
    Question. The transformation of the Army will be strongly dependent 
on technological advancements made by science and technology programs 
both inside and outside of the Army.
    In your view, has the Army sufficiently funded S&T programs needed 
to develop new systems including chemical and biological sensors, 
unmanned ground vehicles, computer network defense, and others?
    Answer. I believe that the Army has appropriately funded within 
available resources its S&T program to focus on achieving the Army's 
transformation to the Objective Force.
    Question. If confirmed, would you be in favor of setting a target 
percentage of Army Total Obligation Authority for Army S&T programs?
    Answer. I support the Department of Defense's guidelines that have 
a goal of budgeting S&T as 3 percent of the overall DOD budget by 2007. 
The Army should continue to maintain robust funding for S&T to achieve 
its Objective Force capabilities.
    Question. To date, Army leaders have not clearly delineated the 
relative priorities of the requirements to develop the Objective Force, 
field six Interim Brigade Combat Teams (IBCTs), and recapitalize and 
selectively modernize the existing ``legacy'' forces. If confirmed, how 
would you prioritize those requirements?
    Answer. In my view, each of these requirements is essential. If 
confirmed, I will assist the Secretary of the Army in achieving an 
appropriate balance among these essential priorities.
    Question. In your view, how should recapitalization and 
modernization of the legacy forces be accomplished?
    Answer. In my opinion, the Army must continue to inform Congress of 
the Army's needs and leverage its existing resources to recapitalize 
and modernize its essential legacy forces primarily through upgrades 
and overhauls of these existing systems while moving to the Objective 
Force. Depots and industry partners should be adequately resourced to 
support recapitalization and modernization programs.
    Question. In your view, what is the appropriate role of 
experimentation in developing the Objective Force?
    Answer. I believe experimentation is an essential element that is 
embedded throughout the overall plan to transform the Army. The process 
of experimentation helps the Army understand the future warfighting 
environment and examine a wide range of operational concepts and 
emerging technologies. As the Army continues the development of the 
Objective Force, both joint and Army experimentation provide valuable 
insights into the capabilities the joint force will need to support our 
national defense.
    Question. In your view, does the Army have a sufficiently robust 
experimentation plan, and do the Interim Brigade Combat Teams have a 
role to play in that regard?
    Answer. I have not been briefed on the specifics of the Army's 
experimentation plan. I believe that lessons learned and insights from 
fielding of IBCTs as well as joint and Army experiments should enhance 
the further development of IBCTs and the Objective Force.
    Question. If confirmed, what specifically would you recommend to 
the Secretary of the Army regarding the path to the Objective Force?
    Answer. In my view, the Army should continue to pursue the 
essential levels of maturity of key technologies in support of the 
Objective Force.
    Question. In your view, does the Army have a capabilities gap which 
the Interim Brigade Combat Teams are designed to fill? If so, will 
fielding six IBCTs sufficiently close that gap? Is there an alternate 
solution that you would recommend to the Secretary of the Army, if 
confirmed, particularly in light of the severe Army funding 
constraints?
    Answer. The Army has asserted that the IBCTs will fill the gap for 
a medium weight force. I believe that at an appropriate time, the Army 
should conduct an operational evaluation of the proposed IBCT force 
structure to determine whether it adequately closes that gap. I also 
believe that alternative solutions that might meet the Army's 
requirements at reduced costs should be thoroughly examined.
    Question. The Army has described the Interim Brigade Combat Teams 
as full spectrum capable, but optimized for peacekeeping.
    In your view, are the IBCTs capable of full spectrum combat? If 
confirmed, would you recommend a comprehensive operational evaluation 
of the capabilities of the IBCTs in full spectrum combat?
    Answer. I believe that a comprehensive operational evaluation of 
the IBCT should be conducted at an appropriate time to be determined by 
the Army. Such an evaluation should measure the combat capabilities of 
the IBCT.
    Question. In the Fiscal Year 2001 National Defense Authorization 
Act, Congress mandated a side-by-side operational and cost comparison 
of an Interim Brigade Combat Team unit equipped with the Army's choice 
of interim combat vehicle, and a unit similarly configured and trained, 
but equipped with the medium armored vehicle currently in the 
inventory.
    In your view, would such a comparison provide worthwhile 
information for future decisions?
    Given the current war on terrorism, would you recommend, if 
confirmed, that the Army conduct the side-by-side comparison as 
currently planned, or seek congressional relief from the requirement?
    Answer. I believe that the Army should have full knowledge 
regarding the relative operational combat capabilities and costs of 
alternative combat vehicles that meet the Army's requirements for such 
vehicles. I believe it is important and worthwhile for the Army to have 
this information for current and future decisions. If the Army can 
provide satisfactory and timely information that Congress requires 
without conducting a side-by-side test, then a test might not be 
necessary. The requirement was enacted before September 11. If the Army 
concludes that the test would have a significant, negative impact on 
its preparations and operations for the current war on terrorism, I 
believe Congress should reconsider the testing requirement.
                          defense laboratories
    Question. The Army is currently participating in a number of 
congressionally-mandated pilot programs to reform and revitalize the 
defense laboratory and test and evaluation enterprise. A number of 
these programs, including those intended for implementation at the 
Aberdeen Test Center, have been delayed due to legal and regulatory 
hurdles.
    If confirmed, what actions would you propose to remove those 
barriers?
    Answer. I realize that the defense laboratory and test and 
evaluation centers face many challenges. I understand that Congress has 
authorized several pilot programs to help reform and revitalize them. 
If confirmed, I will work with the Army leadership to ensure compliance 
with congressional mandates in this area.
                    chemical and biological defenses
    Question. Army science and technology programs fund some of the 
world's most advanced research on chemical and biological defense and 
medical technologies. The various technologies that result from these 
efforts are often delayed by Government (FDA and EPA) regulatory 
processes and therefore delayed in being transitioned to warfighters.
    If confirmed, would you support streamlining the regulatory 
processes for highly critical technologies?
    Answer. While I believe that essential testing and evaluation must 
be accomplished to ensure the health and safety of our soldiers, 
unnecessary procedures that impede timely fielding of advanced 
technologies--especially chemical and biological defense technologies--
should be thoroughly examined and streamlined where possible.
    Question. If confirmed, what actions, if any, would you propose to 
have the Army assist its successful contractors through the FDA and EPA 
approval process?
    Answer. I don't feel adequately informed to provide an answer to 
this question. If confirmed, I will be happy to look into this matter 
and respond to the committee if it requests.
       transfer of ballistic missile defense programs to the army
    Question. The Ballistic Missile Defense Organization has proposed 
transferring the MEADS and PAC-3 programs to the Army, starting in 
fiscal year 2002. Although PAC-3 is a mature program, now heading into 
its final phase of operational testing, the MEADS program is just now 
emerging from initial concept definition. MEADS is not scheduled for 
deployment until the end of this decade, or beyond.
    What is your view of the proposed transfer of these programs to the 
Army? What are the advantages and disadvantages of such a transfer?
    In your view, is the Army prepared to support and fund these two 
programs to completion?
    Answer. I understand PAC-3 is a mature technology and transferring 
it to the Army who will operate the system makes sense. On the other 
hand, MEADS is still in development, although it leverages some 
existing PAC-3 technology. Therefore, in my view, MEADS should remain 
with BMDO until more fully developed. In my view, while the Army might 
be prepared to support these programs, funding would be difficult 
within their current budget.
            weapons of mass destruction, civil support teams
    Question. In its September 2001 report on combating terrorism, 
which was mandated by the National Defense Authorization Act for Fiscal 
Year 2001, the General Accounting Office asserted that the Weapons of 
Mass Destruction--Civil Support Teams (WMD-CSTs) ``continue to 
experience problems with readiness doctrine and roles, and deployment 
that undermine their usefulness in an actual terrorist incident.''
    In your view, is it necessary to maintain the WMD-CSTs? If so, what 
should be done to bring all of the teams up to a high, uniform standard 
of readiness?
    Answer. Yes. If confirmed, I would support the Secretary of the 
Army in ensuring that the teams are properly manned, equipped, trained, 
and prepared to accomplish their assigned mission.
    Question. In your view, is there a requirement for additional WMD-
CSTs, and should the Department consider augmenting the teams to 
include such capabilities as decontamination?
    Answer. It is my understanding that several studies concluded that 
more CSTs would be required to ensure timely, full coverage across the 
Nation. Because of the events on and after September 11, I believe the 
Department of Defense should consider adding new teams. I understand 
the Army National Guard and Army Reserve have been provided 
decontamination equipment sets that could be utilized to support a mass 
casualty decontamination requirement. The Department should seriously 
consider whether this capability is sufficient to meet the potential 
need.
    Question. In your view, should the active duty Army develop WMD-
CST-like capabilities?
    Answer. I believe the active Army should continue its focus on its 
warfighting mission. The Reserve components are best suited to work 
with our domestic state, and local first responder communities.
                  army installations force protection
    Question. A September 2001 GAO report on installation 
antiterrorism/force protection criticized the lack of standards and 
assessments across all the military services.
    In your view, what measures should the Army take, together with the 
other services, to improve installation preparedness against terrorist 
attacks?
    Answer. I believe the Army should define its requirements and 
standardize its force protection capabilities across its installations 
and facilities both at home as well as abroad, subject to the standards 
and requirements by unified commanders in their areas of 
responsibility. These efforts should be coordinated with other 
services, DOD, and, where appropriate, local authorities.
    Question. In your view, what are the greatest vulnerabilities that 
Army installations face in preventing terrorist attacks and in 
responding to them, and how would you, if confirmed, propose addressing 
those weaknesses?
    Answer. I have not studied this in sufficient detail to provide an 
adequate response, but I intend to become familiar with all aspects of 
the vulnerabilities of the Army's installations and how to address 
them. I will be happy to provide a response to the committee, if 
confirmed, if the committee desires.
                              encroachment
    Question. On November 27, 2000, the Senior Readiness Oversight 
Council identified several ``encroachment'' problems confronting the 
Department of Defense including protection of endangered species, 
unexploded ordnance and other constituents, commercial demand for 
bandwidth and frequency, sustainability of the maritime environment, 
demand for use of airspace, protection of air quality, abatement of 
airborne noise, and growth of urban areas. At a March 20, 2001, hearing 
before the Readiness and Management Support Subcommittee, 
representatives of the military services expressed concern that this 
encroachment was hindering their legal responsibility under Title 10, 
United States Code, to train the forces.
    If confirmed, what actions would you propose to address these 
problems?
    Answer. In my opinion these problems threaten the ability of our 
military forces to train adequately for combat. If confirmed, I would 
work with OSD, other services, and Congress to address these problems.
                          ac-rc relationships
    Question. During the past decade, relations between the Regular 
Army leadership and the Reserve components, particularly the Army 
National Guard, have not always been harmonious.
    In your opinion, has the total Army leadership dealt adequately 
with this problem? If not, what steps would you recommend?
    Answer. I believe the Army leadership is addressing these concerns 
and the Reserve components, as an essential part of our total force, 
will be a high priority for me.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                              encroachment
    1. Senator Akaka. I am interested in your thoughts regarding 
encroachment. I reviewed your response to the advance questions and 
noted your commitment to work with Office of the Secretary of Defense 
(OSD), the other services, and Congress to address problems of 
encroachment. How do you plan to address encroachment issues as the 
Under Secretary of the Army?
    Mr. Brownlee. The Army faces significant challenges in the area of 
encroachment as it relates to training and ranges, all generally 
resulting from environmental, social, and economic influences. Impacts 
include, but are not limited to, restrictions on available testing and 
training locations; restrictions on available times and duration for 
testing and training; reduced effectiveness of testing and training 
activities; and restrictions on weapons systems, equipment, and 
munitions used during testing and training. The Army is working with 
the Office of the Secretary of Defense and the other Services to 
address these challenging issues.
    We would ask Congress to support the Army's effort to ensure that 
encroachment does not prevent effective training in the following ways:
    (1.) Support and resource implementation of the Army's Sustainable 
Range Program (SRP). SRP is the foundation for sustaining live training 
and the environment on our ranges. Although final funding levels have 
not been established, we ask Congress to support this important 
program.
    (2.) Support and foster cooperation among regulators and the 
military, emphasizing the need to balance military readiness concerns 
and environmental regulation. We believe there are ways to balance the 
needs of the military with the needs of the environment. It would be 
helpful if Congress would encourage regulatory agencies to work with 
DOD to develop compliance methods that support both regulatory and 
military objectives.
    (3.) Undertake legislative initiatives to clarify statutory 
requirements that apply to military operations. As currently written, 
several statutes contain broad discretionary enforcement thresholds 
that are based on the assessment of the regulatory authority as to 
whether a given condition presents a potential risk or imminent hazard 
to human health or a particular natural resource. While the Army is not 
seeking to avoid our responsibilities to the American people, or 
seeking relief from compliance with environmental statutes, the lack of 
consistent and measurable standards limits the Army's ability to plan, 
program, and budget for compliance requirements. It would be premature 
to discuss specific proposals, but we look forward to working with 
other Federal agencies and Congress.
    The encroachment of commercial interest into portions of the radio 
spectrum used by the Army is also a serious issue. The growth of 
commercial wireless services is an important factor in our country's 
economic well being, but this growth must be balanced with the 
necessity of providing for our Nation's defense.
    The National Defense Authorization Act of Fiscal Year 2000 directed 
that DOD shall not surrender spectrum of which it is a primary user 
until comparable replacement spectrum is made available. This language 
should be an effective tool in ensuring the Army's access to the 
spectrum it requires. Additionally, we will work with DOD to identify 
impacts to Army operations. DOD is currently leading an effort that 
includes Army participation to address potential impacts that would 
result from loss of access to spectrum for commercial wireless systems.

                corrosion prevention and control program
    2. Senator Akaka. The Department of Defense is spending a 
significant amount of money because of corrosion--current estimates are 
about $20 billion per year. The Readiness Subcommittee has begun to 
address this issue with the goal of being proactive in order to help 
minimize the drain on scarce operations and maintenance (O&M) 
resources. There is a need to address corrosion issues not just through 
maintenance and repair, but also in the acquisition process in order to 
decrease total life cycle costs. What will you do, as the Under 
Secretary of the Army, to assist the Army in addressing this issue?
    Mr. Brownlee. In 1997, the Army chartered a Corrosion Prevention 
and Control (CPC) program to address common Army and DOD corrosion 
issues. This program was developed to resolve Army Materiel Command 
commodity requirements, address field and depot level maintenance 
issues, and support new weapon system acquisition. The Army CPC program 
consists of science and technology (S&T) and Operations and Maintenance 
Army (OMA) functions. As part of the Army's effort, a working group was 
established to integrate requirements and guide the Army in identifying 
and executing high-value solutions. We have since identified tactical 
vehicles and rotor craft as high-value targets.
    A recent example of the impact of our efforts on the Army 
acquisition program is with the Family of Medium Tactical Vehicles, 
which responded to our work group recommendations and upgraded 39 
components. This increased the projected service lives up to seven 
times that of the original equipment manufacturer products. The 
ultimate value of the Army's CPC S&T effort is to develop more durable 
material that costs less to maintain.
    The CPC OMA program's focus is on establishing corrosion service 
centers and updating Army policy to influence the procurement process. 
The Army is planning to build corrosion service centers of excellence 
that protect airframes, ammunition, tactical vehicles, and ground 
support equipment. We have approved five CPC products and techniques 
for application on tactical vehicles, material handling, and 
construction equipment. We need additional candidates for CPC testing 
on missiles, aviation, and weaponry.
    In addition, the Army provided input to DOD that addresses 
corrosion resistant designs. The Army is currently revising policy on 
the CPC program. To date, both functions of the program remain 
unfunded, but have received supplemental funding for S&T and from 
reprogramming to resource urgent OMA requirements. However, these 
additional funds are not sufficient to support a coordinated Army 
approach to corrosion. Current efforts are high-value, ad hoc 
solutions. To raise visibility of this program, the Army established an 
Office of the Secretary of Defense program element entitled ``Army 
Corrosion Prevention and Control Program''--an OMA funding line. The 
Army is currently working to establish a research, development, 
testing, and evaluation (RDT&E) funding line for corrosion to support 
S&T efforts. OMA and RDT&E funding is required to ensure this mission's 
success.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
               interim armored vehicle side-by-side test
    3. Senator Santorum. In the Fiscal Year 2001 National Defense 
Authorization Act, Congress mandated a side-by-side operational and 
cost comparison of an Interim Brigade Combat Team (IBCT) unit equipped 
with the Army's choice of interim combat vehicle, and a unit similarly 
configured and trained, but equipped with the medium armored vehicle 
currently in the inventory. Senator Lieberman and I worked closely with 
General Shinseki and General Keane in establishing this requirement. 
Since the bill became law, Army leadership has repeatedly asked for 
relief from this requirement.
    In your answers to advance policy questions, you stated that ``the 
Army should have full knowledge regarding the relative operational 
capabilities and costs of alternative combat vehicles that meet Army 
requirements for such vehicle,'' that ``it is important and worthwhile 
for the Army to have this information for current and future 
decision,'' but that ``if the Army can provide satisfactory and timely 
information that Congress requires without conducting a side-by-side 
test, then a test might not be necessary.''
    In your capacity as Republican staff director, did you believe that 
the Army provided such satisfactory and timely information?
    Mr. Brownlee. As the Republican staff director and a member of the 
Senate staff, I have enjoyed many years of personal and professional 
relationships with the Army. I believe the Army always does their best 
to provide valuable information as quickly as possible. While I am sure 
the Army believed they were being totally responsive to Congress in 
this regard, I believe that we can do a better job of communicating on 
this specific issue. If confirmed, I will work with the Army and 
Congress to provide the information Congress has requested. If such 
information is available and can be provided to Congress without 
conducting a side by side test, then Congress might consider relieving 
the Army of conducting the side by side test.

    4. Senator Santorum. If not, what should the Army do, and what do 
you believe should be satisfactory to Congress to make the test 
unnecessary?
    Mr. Brownlee. The light armored vehicle (LAV)-based IBCT force is 
the best value decision for the Army's needs. The Army collected and 
reviewed information on the M113A3 measured against the operational 
requirements document (ORD) for the interim armored vehicle (IAV) to 
provide insights that a side-by-side test would likely yield. The 
analysis of the M113 variant-based proposal and current Army inventory 
showed that this platform falls far short of IAV ORD requirements. The 
LAV variant-based design will fully meet our key performance parameters 
as determined by the Army during source selection, validated by GAO, 
and reinforced by the findings of analysis conducted by the Army 
Material Systems Analysis Activity.
    In addition, the Army has committed to a robust test program for 
the LAV variant-based IBCT that far exceeds the operational and 
technical testing required by the side-by-side comparison. Our 
comprehensive test and evaluation strategy will validate the 
effectiveness, suitability, and survivability of the IAV through 
technical, ballistic and non-ballistic survivability, and operational 
testing. The Army will conduct a production verification test, a live-
fire test, and an initial operational test, and report the results to 
obtain a full rate production decision in December 2003. Further, the 
Army will conduct a thorough operational evaluation of the unit before 
employment.

    5. Senator Santorum. Do you believe that such a test would have a 
significant, negative impact on the Army's preparations and operations 
for the current war on terrorism?
    Mr. Brownlee. The side-by-side test could cost the Army up to $28 
million and, perhaps more importantly, distract the Army's management 
attention at this critical time. Needless to say, the Army would prefer 
to spend its scarce resources and efforts in other ways, especially 
now, during this crucial period for our Nation.

    6. Senator Santorum. Today, Senator Inhofe criticized the cost to 
the Army of conducting this side-by-side test. What are the potential 
costs to the Army if a new platform is procured that is the same or 
only marginally better than the platforms that the Army has already 
purchased and that are in its inventory?
    Mr. Brownlee. The Army awarded the IAV contract based on a best-
value determination, selecting the proposal determined to be the best 
overall considering five evaluation areas: schedule, performance, 
supportability, cost, and management. The best value award addressed 
the Army's need to procure, field, and support a force of safe, 
reliable, supportable, and effective systems. Based on the selection 
criteria, the Army selected the LAV-based proposal over all other 
systems, including the M113 variant proposal.
    The winning LAV proposal was significantly superior to all other 
competitor proposals in the performance and supportability areas. These 
advantages were deemed so significant as to outweigh any schedule and 
cost advantages of the M113 variant.

                       army acquisition strategy
    7. Senator Santorum. The Army only has enough resources to 
modernize its Counterattack Corps and selected XVIII Airborne corps 
units. How might this expensive acquisition strategy undermine the 
Army's attempts to modernize its Legacy Force and invest in its 
Objective Force?
    Mr. Brownlee. The Army has made hard decisions to adapt to new 
priorities by allocating resources and canceling and modifying 
programs. The current investment in the Legacy Force, a selected 
modernization and recapitalization program targeting 17 critical 
systems, is essential for the combat readiness of the counterattack 
force. Parallel to this effort is the investment in the Interim Force, 
an absolute necessity to meet strategic gaps in capability, and the 
Objective Force.
    While the Legacy Force sustains the Army's non-negotiable contract 
with America to fight and win the Nation's wars, the Interim Force 
provides critical strategic responsiveness for the near- and mid-term 
while the Army transforms to the Objective Force. The Interim Force, 
rapidly deployable, sustainable, and lethal expands the National 
Command Authority's options when dealing with uncertain threats around 
the world. The risk assumed by limited recapitalization and 
modernization of the Legacy Force is mitigated by the Interim Force 
capability and considerable investment in the Objective Force 
development to ensure technologies are matured sufficiently to meet 
aggressive timelines. Erosion in any of the three paths will impact 
overall transformation. Severely curtailing Legacy Force 
recapitalization will significantly impact combat readiness and make 
sustainment of those systems more expensive before they are retired. 
The balanced approach to transformation sustains combat readiness, 
fills capability gaps, and assures future combat dominance.
                                 ______
                                 
              Question Submitted by Senator Jeff Sessions
                   patriot advance capability (pac)-3
    8. Senator Sessions. Mr. Brownlee, I agree with your analysis that 
PAC-3, a mature technology, should be transferred to the Army, and that 
MEADS, a new system, should remain with the Ballistic Missile Defense 
Organization.
    However, do you agree that if the Army does receive the PAC-3, that 
it is critical to the success of this system that no less than eight 
battalions of PAC-3s be funded for and fielded by the Army?
    Mr. Brownlee. The Army requires ten PAC-3 Active Component (AC) 
Patriot battalions and the Southwest Asia pre-positioned assets be 
funded and fielded. The PAC-3 system provides the CINCs the best 
capability available and is a significant enhancement to the fielded 
PAC-2 system.
    Total Army Analysis (TAA) 07, the Army's method to determine force 
structure requirements, validated the requirement for 14 Patriot 
battalions consisting of ten AC, two Army National Guard (ARNG), and 
two battalions that are unresourced. The results of a recent TAA 09 
General Officer Steering Committee confirmed that the Army's 
requirement has increased from 14 to 15 Patriot battalions (three corps 
brigades (two battalions per corps for a total of six battalions); two 
theater brigades (three battalions per brigade for a total of six 
battalions); and three battalions for homeland security).
    Currently, there are 12 Patriot battalions in the Army (ten AC 
battalions, two ARNG battalions) and one pre-positioned Southwest Asia 
battalion set. Of the 12 Army Patriot battalions, only seven AC 
battalions are currently funded for PAC-3 upgrades. The PAC-3 program 
is funded to upgrade seven AC battalions and the Southwest Asia Patriot 
pre-positioned assets. Additionally, the program must be funded to 
procure the required 2,200 PAC-3 missiles to meet the Army's 
acquisition objective versus the 1,130 for which the program is 
currently funded.
    In June 2001, the PAC-3 program was transferred from the Ballistic 
Missile Defense Organization to the Army with $2.7 billion in funding. 
The transfer provided upgrades for seven PAC-3 battalions and 1,130 
PAC-3 missiles. The Army still has requirements to upgrade an 
additional three PAC-3 battalions and an additional 1,070 PAC-3 
missiles to reach the Army's acquisition objective.
                                 ______
                                 
    [The nomination reference of R.L. Brownlee follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 30, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    R.L. Brownlee, of Virginia, to be Under Secretary of the Army, vice 
Gregory Robert Dahlberg, resigned.
                                 ______
                                 
    [The biographical sketch of R.L. Brownlee, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                  Biographical Sketch of Les Brownlee

    Les Brownlee has served on the Republican staff of the 
Senate Armed Services Committee since January 1987 under both 
Senator Strom Thurmond (R-SC) and Senator John Warner (R-VA). 
Prior to assuming this position, he was National Security 
Advisor to Senator John Warner for 3 years.
    In March 1996, Brownlee was designated staff director of 
the Senate Committee on Armed Services by then-Chairman, 
Senator Strom Thurmond (R-SC). In January 1999, he was 
designated staff director for then-Chairman, Senator John 
Warner, serving through the recent change in control of the 
Senate. Brownlee continues to serve as the Republican staff 
director for Senator John Warner (R-VA), the current Ranking 
Member.
    From 1987 to 1996, he was the principal Senate Armed 
Services Committee professional staff member responsible for 
Army and Marine Corps programs, Special Operations Forces and 
Drug Interdiction policy and support. In addition, as deputy 
staff director, he was deeply involved in policies and programs 
relating to ballistic missile defense, strategic deterrence, 
and naval strategy, shipbuilding and weapons programs.
    Brownlee is a retired Army Colonel and was commissioned as 
a Lieutenant of Infantry from ROTC at the University of Wyoming 
in 1962. Airborne-qualified and a Distinguished Honor Graduate 
of the U.S. Army Ranger Course, he is also an Honor Graduate of 
the Infantry Officer Advanced Course, the Command and General 
Staff College, and a graduate of the U.S. Army War College. In 
addition, he holds a Masters Degree of Business Administration 
from the University of Alabama.
    He served two tours in Vietnam and, during the last 2\1/2\ 
years of a 4\1/2\ year tour in the Pentagon, was Military 
Executive to the Under Secretary of the Army, James Ambrose, 
before retiring in 1984. His decorations include the Silver 
Star with Oak Leaf Cluster, the Bronze Star with two Oak Leaf 
Clusters, and the Purple Heart.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by R.L. Brownlee 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Romie Leslie Brownlee (Les).

    2. Position to which nominated:
    Under Secretary of the Army.

    3. Date of nomination:
    October 30, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 11, 1939; Pampa, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced.

    7. Names and ages of children:
    Tracy Ann (Brownlee) Carney, 38; John L. Brownlee, 36.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Odessa Senior High School (Odessa, TX); 1954-1957; High School 
Diploma.
    University of Wyoming (Laramie, WY); 1957-1962; BS.
    University of Alabama (Tuscaloosa, AL); 1967-1969; MBA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    United States Army; Army Officer; 1962-1984.
    Office of U.S. Senator John Warner; National Security Legislative 
Assistant; 1984-1987, U.S. Senate, Washington, DC 20510.
    U.S. Senate Committee on Armed Services; Professional Staff Member, 
Deputy Staff Director, Staff Director; 1987 to present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    03/00--Bush for President--$250.
    10/00--RNC Victory 2000--$250.
    10/00--RNC Presidential Trust--$500.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Military Awards:
      Silver Star, 2 awards.
      Bronze Star, 3 awards.
      Purple Heart.
      Legion of Merit.
      Air Medal w/``V''device, 5 awards.
      Meritorious Service Medal, 2 awards.
      Army commendation w/``V'' device, 2 awards.
      Combat Infantryman's Badge.
      Ranger Tab (Distinguished Honor Graduate).
      Senior Parachutist's Wings.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have not given formal speeches.

    17. Commitment to Testify Before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Romie L. Brownlee.
    This 1st day of November, 2001.

    [The nomination of R.L. Brownlee was reported to the Senate 
by Senator Warner on November 8, 2001, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on November 8, 2001.]
                              ----------                              

    [Prepared questions submitted to Dr. Dale Klein by Chairman 
Levin prior to the hearing with answers supplied follow:]

                                                  November 6, 2001.
The Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Yours truly,
                                                        Dale Klein.
cc:
The Honorable John Warner,
Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. If confirmed, I will fully support the intent of the 
reforms and will advocate policies that will facilitate accomplishment 
of joint operations, streamline acquisition management and oversight, 
and enhance the Department's ability to respond to our 21st century 
national security challenges.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I think the Department has done a creditable job in 
implementing defense reforms. However, without periodic policy reviews, 
these reforms can lose their effectiveness. It is my understanding that 
periodic reviews will be conducted to address the evolving security 
environment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted below to be an 
important aspect of these defense reforms. Prime among these is the 
concept of strengthening civilian control.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the National strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate?
    Answer. If confirmed, I would consult with the Secretary of Defense 
and Congress on any changes that might be appropriate.
    Question. If so, what areas do you believe it might be appropriate 
to address in these proposals?
    Answer. It is premature to offer any thoughts on the question at 
this time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant to the Secretary of Defense for Nuclear, Chemical and 
Biological Defense Programs (ATSD(NCB))?
    Answer. It is my understanding that my primary duty, if confirmed, 
is to work with the National Nuclear Security Administration to take 
care of the U.S. nuclear weapons stockpile. My duties also include 
countering the proliferation of weapons of mass destruction and the 
oversight of effective chemical and biological defense programs. 
Finally, but equally important, it seems clear that my duties also 
include the oversight of the safe and secure demilitarization of our 
chemical weapons stockpile.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Since 1977, I have been a professor in the Department of 
Mechanical Engineering, Nuclear and Radiation Engineering Program at 
the University of Texas at Austin. I have been the Vice-Chancellor for 
Special Engineering Programs at the University of Texas System since 
1998. I also serve as the Chairman and Executive Director of the 
Amarillo National Research Center for Plutonium (ANRC), during which 
time I have overseen more than $45 million in funding for plutonium 
research and nuclear weapon dismantlement issues. I have collaborated 
very closely with researchers at Pantex and the National laboratories 
to address stockpile stewardship issues. In addition, I previously 
served as Associate Dean of Research in the University of Texas College 
of Engineering, where I had twenty-two research units reporting to me, 
with several in the chemical and biological areas.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant to the 
Secretary of Defense for Nuclear, Chemical and Biological Defense 
Programs?
    Answer. As you are well aware, the office has been vacant for 3 
years. If confirmed, my first task will be to staff my office. Then I 
need to listen to the subject matter experts and the people in the 
field to perform my duties as I outlined above.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. I expect to be prescribed responsibilities for maintaining 
the nuclear stockpile, addressing counterproliferation and chemical and 
biological defense, and working chemical demilitarization.
    Question. In carrying out your duties, how will you work with the 
Secretary of Defense, the Under Secretary of Defense for Acquisition 
and Technology, the Secretaries of the Military Services, the Defense 
Threat Reduction Agency, and the Administrator and Deputy 
Administrators of the National Nuclear Security Administration?
    Answer. If confirmed, I intend to work as a team with Secretary 
Rumsfeld, Under Secretary Aldridge, the Secretaries of the Military 
Departments, and Director Younger. I will also, if confirmed, work 
closely with General Gordon and the Deputy Administrators of the 
National Nuclear Security Administration through the Nuclear Weapons 
Council. Then, working with others in DOD and Congress, I will 
recommend whatever changes might need to be made.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant to the Secretary of Defense for Nuclear, 
Chemical and Biological Defense Programs?
    Answer. I see five major challenges that will confront me, if 
confirmed. These include maintaining the safety, security and the 
reliability of our aging nuclear weapons stockpile, countering the 
continued proliferation of weapons of mass destruction, meeting the 
challenges of chemical and biological defense, ensuring the safe and 
secure demilitarization of our Nation's chemical weapons, and ensuring 
that DOD is able to support the Nation's focus on Homeland Defense.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will listen to subject matter experts, 
Members of Congress, and the leadership of the Department of Defense, 
and I will assess existing programs to ensure they adequately address 
our national security needs.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant to the Secretary of 
Defense for Nuclear, Chemical and Biological Defense Programs?
    Answer. Since the position of the ATSD(NCB) has been vacant since 
1998, staff and resources will be important, as will fostering a sense 
of teamwork with other offices and organizations.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. While I am not prepared to discuss specifics at this time, 
if confirmed, I will take actions to establish management priorities 
and timelines to address these problems.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant to the 
Secretary of Defense for Nuclear, Chemical and Biological Defense 
Programs?
    Answer. If confirmed, I think the broad priorities would be (1) 
sustainment of the nuclear weapons stockpile to ensure it remains safe, 
secure and reliable; (2) countering weapons of mass destruction; (3) 
implementing effective chemical and biological defense programs; (4) 
ensuring the safe and secure demilitarization of our chemical weapons; 
and (5) coordinating our actions with all homeland security activities.
                            reporting chain
    Question. What is your understanding of who you would report to, if 
confirmed, within the Department of Defense?
    Answer. If confirmed, it is my understanding that I will report to 
Mr. Pete Aldridge, the Under Secretary of Defense for Acquisition, 
Technology & Logistics.
    Question. Section 142 of Title 10 of the United States Code 
requires that the ATSD ``advise the Secretary on nuclear energy, 
nuclear weapons, and chemical and biological defense.'' The 
responsibilities for chemical and biological defense were added to the 
ATSD in 1996. The position was originally created to ensure that the 
ATSD had direct access to the Secretary of Defense to ensure that any 
matters implicating the safety, security or reliability of the nuclear 
weapons stockpile were immediately provided to the Secretary.
    Will the position of ATSD continue to have unfettered access to the 
Secretary for matters pertaining to the safety, security, and 
reliability of nuclear weapons?
    Answer. Yes.
    organizational structure of the office of the assistant to the 
                               secretary
    Question. What is the organizational structure of the office of the 
ATSD?
    Answer. Currently the office consists of the ATSD and three 
deputies: one for Nuclear Matters; one for Counterproliferation and 
Chemical and Biological Matters; and one for Nuclear Treaty Programs.
    Question. Will the offices and responsibilities that previously 
reported to the ATSD the last time the position was filled by an 
individual appointed by the President and confirmed by the Senate be 
restored to the office?
    Answer. Yes.
    Question. Will the director of the Defense Threat Reduction Agency 
report to the ATSD?
    Answer. Yes.
    Question. Will the office responsible for nuclear matters that 
previously reported to the ATSD and currently reports to the Director 
of Defense Research and Engineering (DDR&E) be returned to the ATSD? 
What role, if any, will the Director of Defense Research and 
Engineering have in nuclear matters?
    Answer. Yes.
    If confirmed, I will coordinate with the DDR&E on nuclear issues as 
appropriate.
                      duties and responsibilities
    Question. Section 179 of Title 10 of the United States Code 
designates the ATSD as the Executive Director of the Nuclear Weapons 
Council. The chairman of the Nuclear Weapons Council is the Under 
Secretary of Defense for Acquisition and Technology.
    Will the ATSD have direct responsibility, authority, direction, and 
control of all the assets, resources, and people needed to fulfill the 
responsibilities of Executive Director of the Nuclear Weapons Council?
    Answer. Yes.
    Question. If confirmed as ATSD, would you propose that the Nuclear 
Weapons Council resume its monthly meetings, or would you propose a 
different meeting schedule?
    Answer. If confirmed, I will continue to schedule monthly meetings.
    Question. If confirmed as ATSD, would you ensure that the Nuclear 
Weapons Council carries out it statutorily mandated duties?
    Answer. Yes.
                         nuclear posture review
    Question. If confirmed, would you participate in the nuclear 
posture review?
    Answer. Yes.
                        nuclear weapons testing
    Question. Do you believe that there is a technical reason to resume 
nuclear weapons testing at the present time?
    Answer. At the present time, I have no indication that a nuclear 
weapons test is needed.
    Question. Do you believe we should develop a new weapon design in 
an effort to make sure our experienced designers are maintaining their 
skills and have the opportunity to transfer their expertise to the new 
generation of nuclear weapon designers?
    Answer. Until I've had a chance to review this issue in detail, I 
must defer an answer at this time.
                     stockpile stewardship program
    Question. Do you support the National Nuclear Security 
Administration Stockpile Stewardship Program?
    Answer. Yes.
    Question. If through our science-based Stockpile Stewardship 
Program, the Secretary of Energy and Secretary of Defense are unable to 
certify the safety, security and reliability of our nuclear stockpile, 
would you support the resumption of underground nuclear testing?
    Answer. If the Secretary of Energy and the Secretary of Defense 
reach the point where they are unable to certify the safety, security 
and reliability of the nuclear stockpile, I would assume that, if 
confirmed, I would have been a key contributor to that decision. If the 
President supports this decision and determines that the need for 
nuclear testing is in the supreme national interest of the United 
States, if confirmed, I too would support the resumption of underground 
nuclear testing.
      cooperative threat reduction programs (nunn-lugar programs)
    Question. Do you support the Cooperative Threat Reduction Programs?
    Answer. Yes.
    Question. Do you support the effort of the United States to assist 
Russia with the destruction of chemical weapons?
    Answer. Yes.
    Question. Do you believe that there are any additional activities 
that you would propose be undertaken by the Cooperative Threat 
Reduction program in the areas of nuclear weapons or materials, 
chemical munitions or chemical weapons technologies; or biological 
technologies?
    Answer. While there may be additional activities that could be 
proposed, I would need to wait to confer with subject matter experts 
before making a determination.
    Question. Would you support joint research programs between Russia 
and the United States in the areas of chemical or biological weapons 
defense?
    Answer. Again, I would need to wait to confer with subject matter 
experts before making a determination.
                chemical and biological defense research
    Question. There are currently a number of ongoing research and 
development programs to support chemical and biological defense 
requirements spread across the various services and agencies.
    If confirmed, would you support the consolidation of those programs 
into one office? What are the advantages or disadvantages of this 
consolidated management approach?
    Answer. In order to better manage the joint chemical and biological 
defense program, it is my understanding that Under Secretary Aldridge 
has organized a task force to address some of the management 
deficiencies in the program. If confirmed, I would need to see the 
report from the task force before I made any determinations.
    Question. Congress has worked to greatly increase the funding of 
research in the life sciences and biomedical sciences, especially at 
the National Institutes of Health.
    If confirmed, how would you work to leverage these investments to 
meet the needs of the Department of Defense in therapeutics, vaccines, 
decontamination agents, and other technologies? How are the research 
and development programs of DOD and NIH currently coordinated? In your 
view, how should this coordination be improved?
    Answer. It is my understanding that the Department of Defense 
currently has a collaborative research effort with NIH in the 
development of the next generation anthrax vaccine. Collaborative 
efforts with NIH are leveraged on a case-by-case basis.
    Question. As the Department moves to improve its capability to meet 
chemical and biological threats, there will be an increasing dependence 
on the commercial sector, in both research and production.
    In your view, what steps can Congress take to improve DOD's ability 
to leverage the technical talent, production capabilities, and research 
capabilities of the private sector? In your view, what steps could DOD 
take to encourage new private sector participation in the development 
of technologies of interest to the military?
    Answer. I believe that the current program has taken advantage of 
considerable technical talent, research and production capabilities of 
a number of commercial companies who have developed and are producing 
improved chemical and biological defense equipment. If confirmed, I 
will place a high priority on advocating sufficient resources and on 
further enhancing lines of communication with industry, universities, 
and others.
    Question. A number of promising medical and CB decontamination 
technologies that have been developed with DOD's investments are now 
involved in an extended and costly Federal regulatory process.
    If confirmed, how would you work to speed this regulatory process 
for critical defense technologies? What actions, if any, would you 
propose to assist successful contractors in getting their technologies 
approved for use by the military?
    Answer. The Department of Defense will continue to coordinate 
efforts with the FDA to facilitate industry compliance with regulations 
and to ensure that safe and effective medical products are developed in 
a timely manner. At this point, I cannot comment specifically on 
appropriate changes that could streamline the regulatory process until 
I've had the opportunity to fully examine the issue.
             role of the deputy assistant to the secretary
    Question. In the absence of an Assistant to the Secretary, there 
has been a Deputy Assistant to the Secretary of Defense for Chemical 
and Biological Defense matters.
    If you are confirmed to the position of ATSD, what would be the 
role and functions of the current position of the Deputy Assistant for 
Chem-Bio Defense?
    Answer. It is my understanding that the current role and functions 
of the position are to provide day-to-day oversight for all 
counterproliferation and chemical-biological defense programs, 
consequence management, chemical demilitarization, assembled chemical 
weapons assessment, and chemical and biological weapons treaty 
implementation. If confirmed, I would review these roles and functions.
    Question. Would the Deputy Assistant report to the ATSD?
    Answer. Yes.
    Question. What will be the relationship between the Deputy 
Assistant and the Under Secretary of Defense for Acquisition, 
Technology, and Logistics?
    Answer. If I am confirmed, the Deputy Assistant will report through 
me to the Under Secretary.
   role of the assistant to the secretary on chemical and biological 
                            defense matters
    Question. If you are confirmed, what would you expect your roles 
and responsibilities to be on chemical and biological defense matters?
    Answer. If confirmed, my responsibilities will be to address 
countering the proliferation of weapons of mass destruction. I also 
expect, if confirmed, to oversee effective chemical and biological 
defense programs. Finally, but equally important, I intend to oversee 
the safe and secure demilitarization of our chemical weapons stockpile.
    Question. If confirmed, would you review the chemical and 
biological defense program and make any needed recommendations to 
Congress for improving the program?
    Answer. In order to better manage the joint chemical and biological 
defense program, Mr. Aldridge has organized a task force to address 
some of the management deficiencies in the program. If confirmed, I 
would need to see the report from the task force before I made any 
determinations. The task force is required to report to Mr. Aldridge 
early next year.
    Question. The Department of Defense plays a significant role in the 
area of research, development and acquisition of vaccines, medical 
therapy products, and decontamination technologies for chemical and 
biological defense, among other things.
    If confirmed, would you work with other Federal agencies to review 
the regulatory and approval process for vaccines, medicines and 
decontamination technologies to improve the process and the timeliness 
of product approval?
    Answer. Yes.
          counterproliferation program review committee (cprc)
    Question. The Assistant to the Secretary of Defense (NCB) is 
mandated in statute to ``serve as the executive secretary'' to the 
Counterproliferation Program Review Committee.
    If confirmed as the ATSD, would you fulfill this statutory 
responsibility?
    Answer. Yes.
    Question. If confirmed, what would be your roles and 
responsibilities relative to the Counterproliferation Program Review 
Committee?
    Answer. If confirmed, my responsibilities would be to ensure that 
the CPRC adequately coordinates the efforts of the Department of 
Defense with the Department of Energy and the intelligence community in 
countering proliferation, and paramilitary and terrorist threats.
    Question. If confirmed, what priorities would you establish for the 
CPRC?
    Answer. If confirmed, I will review the responsibilities of the 
CPRC and establish appropriate priorities.
                    chemical and biological defense
    Question. Will the ATSD (NCB) have oversight of the safety and 
security of biological and chemical agents in stock at DOD training, 
R&D, and production facilities?
    Answer. Yes.
    Question. If confirmed, what steps would you take to guarantee the 
safety and security of these agents?
    Answer. If confirmed, I will work with the military services to 
guarantee the safety and security of these agents.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Answer. Yes.
    Question. Do you agree, if confirmed for this high position, to 
appear before this committee and other appropriate committees of 
Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant to the Secretary 
of Defense for Nuclear, Chemical, and Biological Defense Programs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Robert C. Byrd
        gao study of the chemical and biological defense program
    1. Senator Byrd. Dr. Klein, at my request, the General Accounting 
Office conducted a study of the Chemical and Biological Defense 
Program. As I am sure you know, this program develops the gas masks and 
other protective equipment that our troops need to survive an attack 
using a weapon of mass destruction.
    The conclusions of the report are very alarming. If the program 
were working well, it would start by looking at all types of chemical 
and biological weapons that are being developed by countries like Iraq, 
Iran, North Korea, and others. Our intelligence agencies have a pretty 
good idea of what kinds of research these countries are carrying out, 
and some of those programs are pretty advanced. The program would then 
take these threats and develop the equipment necessary to protect our 
soldiers from them. But that is not the case.
    Instead, the Pentagon seems to be buying whatever equipment some 
contractor might offer to it, without regard for whether it actually 
works any better than what we had 10 years ago. I understand that the 
program developed a protective suit for the Navy that begins to 
disintegrate if it is exposed to salt water!
    This is a serious problem. It calls into doubt the safety of our 
troops at the same time that our country is dealing with a bio-
terrorist attack on our homeland.
    Have you seen or been briefed on this report?
    Dr. Klein. At the time of my confirmation hearing, I was unaware of 
the specifics of this Government Accounting Office (GAO) report. 
However, I intend to become familiar with this and other GAO and 
Department of Defense Inspector General (DODIG) reports, their findings 
and recommendations, particularly those that contain acquisition 
implications for the Department. I do expect that these programs will 
be operated in both a safe and cost-effective manner.

    2. Senator Byrd. What do you believe are the main challenges facing 
the Chemical and Biological Defense Program?
    Dr. Klein. The Chemical and Biological Defense Program consists of 
all Department of Defense (DOD) research, development, and acquisition 
(RDA) efforts that develop and procure systems designed to provide U.S. 
forces with the ability to operate effectively in the presence of 
chemical and biological agents. The plans and accomplishments of the 
Chemical and Biological Defense Program are detailed in an annual 
report and performance plan submitted to Congress. Technical challenges 
within the science and technology base are also detailed in the Joint 
Warfighting Science and Technology Plan.
    Joint and service unique RDA efforts are structured to support the 
framework of the three mission areas of CB defense: contamination 
avoidance (detection, identification, warning and reporting, and 
reconnaissance), protection (individual, collective, and medical) and 
decontamination. The current CB program supports warfighters in all 
services. It focuses on force protection for all the services in all 
environments. The programs affect all joint warfighting capabilities, 
while providing an integrated system of systems throughout the battle 
space. It is essential to view all chemical and biological defense 
programs as an integrated system, with each mission area important to 
joint force survival. Our forces need the full spectrum of defensive 
equipment to survive, fight, and win in contaminated environments. One 
of the major challenges of the program is ensuring that adequate 
capabilities in all mission areas are developed and fielded to protect 
the entire force. For example, capabilities for detection and warning 
must be supplemented by protection systems, medical therapeutics and 
vaccines, and decontamination capabilities in order for our forces to 
sustain operations effectively.
    A related challenge is ensuring that defensive capabilities protect 
against the full spectrum of chemical and biological threats. Not only 
must we protect against classical chemical and biological agents, such 
as nerve agents and mustard agents, anthrax, plague, and others, but we 
must also protect against these agents in combination and in various 
states (liquid, aerosols, and vapors). Additionally, we must protect 
against emerging threats, including fourth generation chemical agents 
and potentially genetically modified biological agents.
    Another challenge that is being addressed is the integration of 
defensive capabilities with the strategy to counter the proliferation 
of weapons of mass destruction. We are working to ensure defensive 
capabilities and strategies complement capabilities and plans for 
deterrence, nonproliferation initiatives such as the Chemical Weapons 
Convention and the Biological Weapons Convention, counterforce 
capabilities to destroy adversaries' chemical and biological weapons 
capabilities, and combating terrorism initiatives to prevent and limit 
the effects of terrorist attacks using chemical or biological weapons.
    DOD is addressing some of the challenges to institutionalize 
acquisition efforts for capabilities to manage consequences of a 
terrorist attack. This includes efforts to ensure the units such as the 
Weapons of Mass Destruction Civil Support Teams (WMD-CSTs) and the 
Chemical Biological Incident Response Force (CBIRF) are adequately 
equipped to respond to terrorist attacks.
    DOD continues to work with other agencies to ensure that the unique 
assets and capabilities of the Department can be made available to 
support the lead agencies for terrorist. Additionally, DOD is working 
with other agencies to develop safe and effective vaccines to protect 
against a biological agent attack. Specifically, DOD and the Department 
of Health and Human Services are leading an interagency effort to 
develop the requirements for a national vaccine production facility for 
biological defense vaccines.
    These are some of the major challenges that are currently being 
addressed. Numerous technical challenges are detailed in the reports 
mentioned above. We will continue to improve our capabilities to ensure 
that U.S. forces are the best protected fighting force in the world.

                integration into the acquisition program
    3. Senator Byrd. I think the main problem here is that the Pentagon 
seems to be buying whatever new product is offered to it. First we 
ought to know what something is supposed to do, before we even begin 
testing it, much less purchasing it.
    Do you intend to integrate the intelligence agencies into your 
acquisition program to make sure we get the right equipment to protect 
out troops from the very real threat of chemical and biological 
weapons?
    Dr. Klein. The Department of Defense Chemical and Biological 
Defense Program (CBDP) has always, and will continue to, require 
Defense Intelligence Agency (DIA) validated chemical and biological 
threat assessments as outlined in the Chairman of the Joint Chiefs of 
Staff Instruction 3170.01A (10 August, 1999). Warfighter requirements 
for the acquisition of chemical and biological defense capabilities 
(medical and non-medical) are focused on the DIA validated chemical and 
biological threat list. In order to ensure that the DIA threat list 
that supports the CBDP is current, the Deputy Assistant to the 
Secretary of Defense (Chemical and Biological Defense) in March 2001 
requested the production of an updated chemical and biological warfare 
agent threat document. Just recently, DIA published a comprehensive 
threat document entitled the ``Chemical and Biological Defense Capstone 
Threat Assessment'' (Reference DIA product DI1650-83-01).
    The CBDP also recognizes the need to ensure coordination and 
integration of the Intelligence Community with the user and acquisition 
communities. Currently, the Joint Service Integration Group (JSIG), 
which has responsibility for the integration and oversight of service 
and CINC requirements for chemical and biological defense RDT&E and 
initial procurement, is in the process of establishing a sub-group that 
will be composed of representatives from intelligence, user, and 
acquisition communities. This JSIG sub-group for addressing existing 
and emerging chemical and biological threats will ensure coordination 
and integration among all stakeholders.

                        equipment standardization
    4. Senator Byrd. The program has worked to standardize the 
protective equipment used by the military, so that an Army soldier can 
use the same gas mask as a Navy sailor. This makes sense, under most 
circumstances. But I cannot understand how the program developed a 
protective suit for the Navy special operations personnel that was 
damaged by salt water.
    What are your thoughts on standardizing this type of equipment, as 
opposed to having specialized equipment for unique purposes?
    Dr. Klein. Standardization of equipment is a common sense and cost 
effective approach toward supporting the operational needs and missions 
of our joint forces. However, there are instances where specialized 
equipment may be necessary to facilitate mission accomplishment.
    The Joint Service Lightweight Integrated Suit Technology (JSLIST) 
is the standard joint chemical and biological (CB) suit being fielded 
to soldiers, sailors, airmen, and marines. As such, JSLIST was 
developed with the general needs of joint forces in mind. However, a 
design specific to special operations needs and requirements was also 
developed. Both provide salt water CB protection to the wearer, but not 
as much as a dry JSLIST garment.
    Again, it should be emphasized that no CB suit technology exists 
which provides complete CB protection (including salt water exposure). 
The JSLIST Program Office continues to seek new and promising CB suit 
technologies, even as the current JSLIST is being fielded. Until such 
time as a new technology is identified, developed, and thoroughly 
tested, JSLIST remains the best overall material solution to providing 
CB protection to our joint forces.
                                 ______
                                 
               Questions Submitted by Senator Jack Reed 
                  cooperative threat reduction program
    5. Senator Reed. If confirmed, will you look at potential areas of 
future cooperation with Russia through the Cooperative Threat Reduction 
Program to ensure the U.S. is doing everything possible to safeguard 
Russian nuclear materials and weapons?
    Dr. Klein. The Cooperative Threat Reduction (CTR) Program has a 
number of ongoing projects with the Russian Ministry of Defense to 
enhance the safety and security of Russian warheads in storage and 
during transport. Although not involved with the dismantlement of the 
nuclear weapons themselves, the CTR Program also has an ongoing project 
with the Ministry of Atomic Energy to construct a Fissile Material 
Storage Facility to provide centralized safe, secure, and ecologically 
sound storage of up to 50 metric tons of weapons-grade plutonium and 
200 metric tons of highly enriched uranium removed from nuclear 
weapons. We continue to be concerned with the potential theft or 
diversion of Russian nuclear weapons, and, therefore, we will continue 
to look at potential areas of future cooperation to further safeguard 
nuclear materials and weapons.

    6. Senator Reed. Are there additional opportunities to do research 
with Russia through the Cooperative Threat Reduction program with the 
nuclear scientists and engineers in the Russian nuclear weapons 
complex?
    Dr. Klein. The DOD Cooperative Threat Reduction Program is no 
longer engaged in employing Russian nuclear weapons scientists and 
engineers in cooperative research. The Department of Energy, through 
the Initiatives for Proliferation Prevention and Nuclear Cities 
Initiative, and the Department of State, through the International 
Science and Technology Center in Moscow, undertake this task.

                     stockpile stewardship program
    7. Senator Reed. You stated in your answers to pre-hearing 
questions that you support the Stockpile Stewardship Program to keep 
the nuclear weapons stockpile safe and secure in the absence of nuclear 
weapons testing. What are your plans to ensure that the Stockpile 
Stewardship Program is closely coordinated with and supported by DOD?
    Dr. Klein. The Joint DOD-DOE Nuclear Weapons Council (NWC) has the 
responsibility under Section 179, Title 10, U.S. Code to conduct this 
coordination. As the NWC Staff Director and as the Chairman of the 
Nuclear Weapons Council Standing and Safety Committee, I plan to manage 
this inter-departmental coordination. In my DOD role as the ATSD (NCB), 
I plan to work closely with the Joint Staff, Commanders in Chief 
(CINCs), military services and the Office of the Secretary of Defense 
staff to identify and ensure DOD requirements are met by the Stockpile 
Stewardship Program.

    8. Senator Reed. How will you ensure that the Stockpile Stewardship 
Program meets both long term science goals as well as the near term 
goals of supporting the ongoing life extension programs?
    Dr. Klein. My first priority must be to the stockpile and to the 
refurbishments necessary for the safety and reliability of each nuclear 
weapon system. I will work with the military services, Joint Staff, 
CINCs, appropriate civilian defense officials, and the National Nuclear 
Security Administration (NNSA) to ensure our near-term safety, 
security, and reliability requirements are met. I also understand the 
value of increasing our understanding for weapons-related science and I 
will examine and support the NNSA Campaigns that have the potential to 
enhance safety and reliability in the future.

                         dod strategic systems
    9. Senator Reed. Over the past several years I have been concerned 
that the requirements placed on the Department of Defense to maintain 
certain types and numbers of nuclear weapons are out of sync with the 
delivery system requirements at DOD. In other words there are far more 
nuclear weapons than delivery systems. If confirmed would you commit to 
review this apparent disconnect?
    Dr. Klein. Yes.

    10. Senator Reed. Should this also be something that could be 
addressed in the context of the ongoing Nuclear Posture Review?
    Dr. Klein. Yes.

                         nuclear posture review
    11. Senator Reed. Do you know what your role will be in the Nuclear 
Posture Review process if you are confirmed?
    Dr. Klein. No. However, I plan to be engaged in all issues 
addressed by the Nuclear Posture Review.

                maintaining technically qualified people
    12. Senator Reed. Maintaining technically qualified people at DOE 
and DOD to meet your various responsibilities will be a challenge. How 
can you work with DOE and the military services to make sure the 
necessary people are available, recruited and retained?
    Dr. Klein. I will review the recommendations of the Chiles Report 
on maintaining nuclear weapons expertise within DOE and the recent 
joint DOD/DOE report on maintaining nuclear qualified people. With 
their recommendations in mind I plan to work closely with General 
Gordon at the National Nuclear Security Administration (NNSA) as well 
as with key military and civilian leaders within DOD to assist them in 
their efforts to recruit and retain technically qualified people. I 
believe both DOD and DOE need to establish better long-term 
relationships with universities so the graduates are aware of the 
exciting career opportunities with these Departments. In addition, the 
services need to examine how they structure advancement within their 
career programs to ensure critical positions are filled with 
experienced, motivated and technically qualified people.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                            excess plutonium
    13. Senator Akaka. You have written on the importance of securing 
and disposing of both Russian and U.S. fissile material that is left 
over when nuclear arsenals are reduced. While Russia agrees that 
surplus plutonium must be secured from terrorists, Russia also regards 
this material as a valuable energy source and commodity. In your 
opinion, how important is each aspect of excess plutonium to your 
Russian counterparts?
    Dr. Klein. In my opinion each aspect of excess plutonium is very 
important to the Russians. I believe they realize the extreme 
importance and priority of safeguarding plutonium from terrorists. 
However, they also understand the resources that were invested to 
produce the plutonium in question, and, therefore, place a high value 
on the use of their plutonium. The Russians must strike a balance on 
their use of plutonium compared to other energy sources while providing 
supreme protection of this plutonium from terrorists.

    14. Senator Akaka. Is the terrorist proliferation concern 
overwhelmed by the potential financial gain of this material?
    Dr. Klein. No. I believe Russia understands the need to safeguard 
their plutonium; however, their financial resources devoted to this 
endeavor do merit monitoring.

    15. Senator Akaka. Has this balance shifted since the events of 
September 11?
    Dr. Klein. I believe that the events of September 11th have 
heightened Russian awareness of the paramount need to protect this 
plutonium from terrorists.

                 russian nuclear weapon infrastructure
    16. Senator Akaka. How important are programs that deal with the 
critical personnel issues relating to the Russian nuclear weapon 
infrastructure?
    Dr. Klein. In my view programs that deal with critical personnel 
issues relating to the Russian nuclear weapon infrastructure are very 
important in that they help prevent trained scientists and engineers 
from leaving Russia and selling their expertise to potential 
proliferants. The DOD Cooperative Threat Reduction Program is no longer 
engaged in employing Russian nuclear weapons scientists and engineers 
in cooperative research. The Department of Energy, through the 
Initiatives for Proliferation Prevention and Nuclear Cities Initiative, 
and the Department of State, through the International Science and 
Technology Center in Moscow, undertake this task. Also, I believe it is 
vital that the Russians retain the critical personnel so that Russia 
can effectively dismantle and dispose of the excess Russian nuclear 
weapons and the resulting material in a safe and secure manner.
    One critical personnel issue that the DOD Cooperative Threat 
Reduction Program has dealt with is personnel reliability. We have an 
ongoing project to enhance the Russian Ministry of Defense's personnel 
reliability program by providing a capability for drug and alcohol 
screening and evaluation of personnel who have access to nuclear 
weapons.
    The DOD program does contract with Russian nuclear weapons 
institutes to develop equipment to enhance safety and security of 
nuclear weapons and materials.

    17. Senator Akaka. Do you feel that US CTR programs have placed 
enough attention on the ``brain drain'' and the risks of internal theft 
and diversion of nuclear material?
    Dr. Klein. The ``brain drain'' issue is very important and is 
handled by the Departments of State and Energy. The Cooperative Threat 
Reduction (CTR) Program works closely with the Ministry of Defense to 
protect against internal theft and diversion of nuclear warheads. These 
efforts include equipment and assistance in establishing a personnel 
reliability program to screen and test workers at the warhead 
facilities. It also includes equipment, services and training on 
security in the transport, handling, and storage of the weapons as they 
are withdrawn from operational use and are eventually dismantled. We 
would like to provide more assistance to Russia's Ministry of Defense 
but are hindered by Russia's laws that prohibit foreign personnel 
access to their weapons storage areas. This is a problem we are trying 
to resolve with Russia.
    The DOD program does contract with Russian nuclear weapons 
institutes to develop equipment to enhance safety and security of 
nuclear weapons and materials.

    18. Senator Akaka. Many of the problems faced by domestic chemical 
weapons disposal facility planners, namely local opposition, and 
environmental safety concerns, are shared by planners of Russian 
chemical weapons disposal facilities. Would you consider sharing 
lessons learned and best practices regarding chemical weapon 
destruction with your Russian counterparts?
    Dr. Klein. The DOD CTR Program shares a very special, on-going and 
cooperative relationship with our Russian counterparts for the 
destruction of chemical weapons. We share a common goal of destroying 
chemical weapons stockpiles. As part of this working relationship, we 
routinely share information, lessons-learned and best practices 
pertaining to the safe and efficient destruction of chemical weapons. 
The U.S. Army's Chemical Weapons Destruction program office provides a 
rotating manager to assist in sharing these lessons with Russian 
counterparts. Additionally, our Russian colleagues have visited 
Johnston Atoll and other U.S. Chemical Disposal sites and have met with 
local officials to discuss common problems. We will continue this 
practice as we work with our Russian partners towards building a nerve 
agent destruction facility in Shchuch'ye to eliminate these weapons and 
the threat of their proliferation, and in other areas that enhance U.S. 
national security goals. The complete, rapid and safe destruction of 
both the Russian and U.S. chemical weapons stockpiles is a goal of high 
importance to both our nations.

                   chemcal weapon disposal facilities
    19. Senator Akaka. How would you plan on improving any of the 
concerns raised in a recent GAO report about some U.S. chemical weapon 
disposal facilities?'
    Dr. Klein. Subsequent to the GAO Report Chemical Weapons Disposal--
Improvements Needed in Program Accountability and Financial Management, 
the Department made changes in the DOD Chemical Demilitarization 
program to improve overall program management. First, the Department 
re-categorized the program to an Acquisition Category (ACAT) ID 
designation, which provides more senior-level program oversight 
consistent with the size, scope, and international importance of this 
mission.
    Next, the Under Secretary of Defense for Acquisition, Technology 
and Logistics directed a series of Defense Acquisition Board (DAB) 
program reviews be held on the entire Chemical Demilitarization 
Program. The DAB program review is being used to streamline the overall 
program, establish realistic schedule and cost estimates, and determine 
alternative technology methods for two remaining sites.
    Finally, the Army has responded by consolidating its management 
structure within a single chain of command at the headquarters level. 
This was done to reduce duplication of efforts and improve overall 
management of the program.

    20. Senator Akaka. One objective of DOD's CTR Programs is to 
eliminate and prevent the proliferation of biological and chemical 
weapons and associated capabilities. CTR programs provide collaborative 
research for chemical and biological weapon scientists, enhance 
security and safety at former Soviet biological research centers, and 
consolidate and dismantle infrastructure associated with biological 
weapon production or research. Which of these objectives do you feel is 
the most urgent in the current international climate?
    Dr. Klein. First and foremost, we seek to destroy weapons of mass 
destruction and their means of delivery. If it's not possible to 
destroy such weapons, then we will seek to consolidate and secure them. 
Further, we seek to prevent weapons of mass destruction, materials, and 
knowledge from leaving the former Soviet Union.
    The Biological Weapons Proliferation Prevention aspect of the DOD 
CTR program is of exceptional, and increasing, importance. The priority 
there is to consolidate and enhance the security of dangerous pathogens 
at former Soviet biological research and production facilities. On the 
chemical weapons front, we also are concerned with the threat of 
chemical weapons proliferation and we are troubled by inadequate 
security and safety measures currently being maintained on stocks of 
chemical agents, and we have a program that is addressing this concern.
    Please note, while the DOD CTR Program is involved in targeted 
collaborative research with biological weapon scientists on dangerous 
pathogens to enhance U.S. bio-defense capabilities, the DOD CTR program 
is not involved in similar collaborative research with chemical weapons 
scientists--the Department of State engages in this area.

    21. Senator Akaka. Do you feel these programs have the resources 
and attention needed to accomplish their goals?
    Dr. Klein. Currently, between unobligated funding and the budget 
request, there is both the funding and management flexibility to deal 
with this challenge. The Department in conjunction with the Office of 
Management and Budget (OMB) will notify Congress if requirements for 
additional funds arise.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman
    22. Senator Bingaman. Will the Department look to you as the 
nominated official for oversight of acquisition programs concerned with 
weapons of mass destruction and our nuclear arsenal?
    Dr. Klein. Yes

     23. Senator Bingaman. Will you work to insure the Nuclear Weapons 
Council is an active decision making body so that the Department of 
Energy receives timely guidance and requirements in their Stockpile 
Stewardship Program?
    Dr. Klein. Yes.

                     oversight for counter-terrorism
    24. Senator Bingaman. How will the Department perform oversight for 
counter-terrorism with weapons of mass destruction when the Assistant 
Secretary of Defense for Special Operations and Low Intensity Conflict 
(ASD/SO/LIC) is the official responsible for counter-terrorism and this 
position is responsible for weapons of mass destruction?
    Dr. Klein. One of my responsibilities as the Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological Defense 
Programs (ATSD(NCB)) is countering the proliferation of nuclear, 
chemical, and biological (NCB) weapons of mass destruction and their 
means of delivery. These responsibilities include: the development of a 
counterproliferation (CP) acquisition strategy; the research, 
development, and acquisition related to CP; development of systems and 
standards for the administration and management of the approved plans 
and programs for CP; review and evaluation of programs for carrying out 
approved policies and standards; coordination, cooperation, and mutual 
understanding on CP policies, within the Department of Defense (DOD) 
and between DOD and other Federal agencies; and advisor to the Defense 
Acquisition Board for review of systems for CP programs.
    Another of my responsibilities is that of Executive Secretary for 
the congressionally-mandated Counterproliferation Program Review 
Committee (CPRC) and Chair of that organization's Standing Committee. 
The CPRC is chaired by the Secretary of Defense, with the Secretary of 
Energy as the vice-chair, and the Chairman of the Joint Chiefs and 
Director of Central Intelligence also participating. Serving with me on 
the CPRC Standing Committee is the National Nuclear Security Agency's 
Deputy Administrator for Defense Nuclear Nonproliferation, the Joint 
Staff J-5 Deputy Director for Strategy and Policy, the Central 
Intelligence Agency's Director for Weapons Intelligence, 
Nonproliferation and Arms Control, and the Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict (ASD(SO/
LIC)).
    The ASD(SO/LIC) has overall responsibility for the counterterrorism 
mission. My responsibilities, CP duties, and CPRC congressional mandate 
make me responsible for countering that subset of the NCB aspects of 
paramilitary and terrorist threats. In this capacity, I work closely 
with the ASD(SO/LIC) both directly and within the forum of the CPRC to 
ensure that our efforts are coordinated and that we capitalize on any 
opportunities to exploit possible synergies to ensure that we 
thoroughly address this issue. 

                       low-yield nuclear weapons
    25. Senator Bingaman. What is your position on the development of 
low-yield nuclear weapons as a deterrent against hard and deeply buried 
targets?
    Dr. Klein. The Department of Defense recently submitted the 
congressionally-mandated Report to Congress on the Defeat of Hard and 
Deeply Buried Targets (HDBTs), which responds to Section 1044 of the 
Floyd D. Spence Department of Defense Authorization Act for Fiscal Year 
2001. I support the report's initiatives for finding, locating, and 
attacking HDBTs in a timely manner. 
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                     stockpile stewardship program
    26. Senator Thurmond. Maintaining a safe and reliable nuclear 
weapons' stockpile is of supreme national interest to the United 
States. In the absence of nuclear testing, our Nation relies on the 
Stockpile Stewardship Program as the primary means of ensuring the 
safety and reliability of its nuclear deterrent. What are your views 
regarding the Stockpile Stewardship Program's effectiveness in ensuring 
the safety and reliability of the weapons under the control of our 
Armed Forces?
    Dr. Klein. My perception at this point is that the Stockpile 
Stewardship Program to date, and the excellent Cold-War era legacy of 
nuclear weapons scientists, engineers, and production workers, has 
worked to ensure the safety and reliability of the stockpile. The 
ability of the program to continue to do so is uncertain. The 
effectiveness of the program will ultimately be measured by its ability 
to deliver refurbished safe and reliable weapons in a timely manner to 
meet operational requirements. We have not yet reached that point.

                     role in stockpile stewardship
    27. Senator Thurmond. In your response to the advance policy 
question on major challenges facing you if confirmed, you indicated 
that one challenge will be ``maintaining the safety, security and 
reliability of our aging nuclear stockpile.'' In your view what 
specific role will you have in ``maintaining the safety, security, and 
reliability of our aging nuclear stockpile''?
    Dr. Klein. Specifically, I view myself as the principal OSD focal 
point for the safety, security, and reliability of our nuclear weapon 
stockpile. As the Nuclear Weapons Council (NWC) Staff Director, as the 
NWC Executive Secretary and as the Chairman of the Nuclear Weapons 
Council Standing and Safety Committee, I will manage the joint DOD-DOE/
National Nuclear Security Administration (NNSA) activities aimed at 
maintaining the safety, security and reliability of our aging nuclear 
stockpile. As the ATSD (NCB), I am chartered as the principal contact 
with the DOE/NNSA on all atomic energy matters. I am directly 
responsible to the Secretary of Defense to develop plans for nuclear 
weapons safety and security. I plan to work closely with the Joint 
Staff, Commanders in Chief, Military Services, civilian defense 
officials, the DOE/NNSA in carrying out these responsibilities.

                       chemical demilitarization
    28. Senator Thurmond. The United States has an aggressive, but 
expensive Chemical Demilitarization Program. What will be your specific 
role in the execution of this program?
    Dr. Klein. As the Assistant to the Secretary of Defense for 
Nuclear, and Chemical and Biological Defense Programs, I will provide 
oversight of the Army Chemical Demilitarization Program and the 
Assembled Chemical Weapons Assessment (ACWA) Program. One of my primary 
goals is to foster improved cooperation with the Army to help expedite 
the destruction of our chemical weapons in a safe, treaty-compliant and 
cost-effective manner.

    29. Senator Thurmond. Further, what are your views on how the 
program is progressing toward meeting the 2007 deadline for the 
destruction of the stockpile?
    Dr. Klein. As of December 2001, the Department reports that 24 
percent of the original chemical weapons tonnage has been destroyed. 
Thus, we have achieved the Chemical Weapons Convention (CWC) 20 percent 
destruction milestone well before the April 29, 2002, deadline. As part 
of this destruction effort, all chemical weapons at Johnston Atoll (6.4 
percent of the original inventory) were finally destroyed during 2001. 
Closure operations at Johnston Atoll are currently underway.
    Results from the September 2001 Defense Acquisition Board (DAB) 
review of the Army Chemical Demilitarization program show us that we 
will not be able to meet the Chemical Weapons Convention 2007 deadline 
for complete destruction of our national stockpile of chemical weapons. 
However, a provision in the convention allows for an extension to 2012. 
The Department is looking at adopting efficiencies that will help us to 
condense the overall schedule to within the 2012 timeframe without 
compromising strict safety and environmental standards.
    A second and third phase of the DAB program review will occur in 
March and June 2002, respectively. During these reviews, destruction 
technologies to be used at the Pueblo, CO, and Blue Grass, KY, chemical 
depot sites will be determined. Based on the technologies chosen for 
these sites, the Defense Acquisition Executive will approve the final 
destruction schedule estimates accordingly. 
                                 ______
                                 
             Question Submitted by Senator James M. Inhofe
               chemical and biological detection devices
    30. Senator Inhofe. Dr. Klein, there is a company in Tulsa, 
Oklahoma called Airborne Technologies, that has done some great things 
regarding chemical/biological detection using an airborne platform for 
detection. They are actively involved in project SAFEGUARD, which was 
developed by ERDEC in response to needs identified during the Gulf War. 
Today, SAFEGUARD is our country's only operational, field proven stand-
off detection sensor capable of locating, tracking, and identifying the 
airborne plume produced by chemical weapons of mass destruction (WMD). 
SAFEGUARD functions by flying over enemy territory on a BQ-145 UAV 
utilizing its on-board sensors to identify chemical/biological 
particles.
    In 1995, a blue ribbon panel was directed to study SAFEGUARD and 
the results were overwhelmingly positive. Many of the panel members 
have written me to express how this program could be of great value due 
to the recent terrorist events. My office has been working with DTRA to 
highlight how SAFEGUARD could assist the United States and our allies 
in these tense times since the attack of 11 September. However, the 
progress has been slow with DTRA due to bureaucracy.
    Dr. Klein, I would like for you to study this issue and report back 
to me with your findings. I think you will find that the SAFEGUARD 
program has merit.
    Dr. Klein. I am currently not aware of the details of the SAFEGUARD 
program, but will certainly work to gain familiarity with this issue. 
My general understanding is that research involving the SAFEGUARD 
program was completed in fiscal year 2001 and the hardware was 
transitioned to the U.S. Environmental Protection Agency for 
application and further development. In the interim, the Department 
focused on investigating unmanned aerial vehicle (UAV) deployment for 
other standoff and point detectors. This issue bears looking into and I 
will commit my efforts to that end and report back to you. 
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard
                       chemical demilitarization
    31. Senator Allard. There has been much discussion about impact 
fees for communities that have chemical weapons destruction facilities.
    Where would the money for these proposed impact fees have to come 
from, and how could it affect the chemical demilitarization programs 
for these sites?
    Dr. Klein. In accordance with House Report 106-945, Section 152, p. 
647, the Department tasked the Institute for Defense Analyses (IDA) to 
conduct an independent assessment on ``the impact of the Department of 
Defense Chemical Agents and Munitions Destruction program on the 
communities in the vicinity of the chemical weapons stockpile storage 
sites and associated chemical agent demilitarization activities'' at 
the eight chemical depot facilities located within the continental 
United States.
    Based on the findings of the report, which reveal an overall 
positive economic impact at the state level resulting from 
demilitarization operations at all eight sites, the Deputy Secretary of 
Defense, in a September 25, 2001, memorandum to Congress, did not 
recommend economic assistance to the communities. Therefore, based upon 
this determination, there are no effects to budgets or programs.

    32. Senator Allard. What do you see as your biggest challenge in 
meeting the international deadline for the destruction of our chemical 
stockpile as directed by the Chemical Weapons Convention?
    Dr. Klein. Results from the September 2001 Defense Acquisition 
Board review of the Army Chemical Demilitarization program show us that 
we will not be able to meet the 2007 Chemical Weapons Convention 
deadline for complete destruction of our national stockpile of chemical 
weapons. However, a provision in the Chemical Weapons Convention allows 
for an extension request to 2012. The Department is looking at adopting 
efficiencies that will help us to condense the overall schedule to 
within the 2012 timeframe without compromising strict safety and 
environmental standards. Therefore, our biggest challenge will be to 
identify and incorporate such efficiencies that will help us maintain 
treaty compliance without compromising safety and environmental 
standards.

    33. Senator Allard. Will we meet the deadline?
    Dr. Klein. The Defense Acquisition Executive (DAE), during a 
September 2001 Defense Acquisition Board program review, approved a new 
schedule for completion of chemical weapons destruction. Based on the 
new schedule, we will not complete chemical weapons stockpile 
destruction before the 2007 deadline.
    However, a provision in the Chemical Weapons Convention allows for 
an extension request to 2012. The Department is looking at adopting 
efficiencies that will help us to condense the overall schedule to 
within the 2012 timeframe without compromising strict safety and 
environmental standards.
                                 ______
                                 
              Questions Submitted by Senator Tim Huthinson
                      vaccine production facility
    34. Senator Hutchinson. The National Defense Authorization Act for 
Fiscal Year 2002, passed by the Senate on October 2, 2001, provides 
authority for the Secretary of Defense to design, construct and operate 
on an installation of the Department of Defense a Government-owned, 
contractor-operated vaccine production facility. The Senate provided 
this authority following a comprehensive review by the Emerging Threats 
and Capabilities Subcommittee of this committee, as well as the work of 
other congressional committees. In addition, an advance recommendation 
of the Gilmore Commission on Terrorism recommends a Government-owned, 
contractor-operated vaccine production facility. I encourage you to 
review the work of this committee and other congressional committees, 
as well as the work of the Gilmore Commission. 
    Dr. Klein, should the Secretary of Defense utilize the authority 
provided to him by Congress, I expect that your office will execute his 
instructions.
    Will you assure the committee that the site selection process for a 
Government-owned, contractor-operated vaccine production facility will 
be fair and transparent?
    Dr. Klein. Yes, the acquisition process will follow established 
policies and provisions of the National Environmental Protection Act, 
local and State permitting, Federal Acquisition Regulation, and the 
Defense Acquisition Regulation Supplement.

    35. Senator Hutchinson. Dr. Klein, will you assure the committee 
that as the criteria is established for site selection, that this 
committee be briefed on that criteria and that, before site selection 
is made, the committee receive a briefing? 
    Dr. Klein. As I stated during my confirmation hearing, I intend to 
work closely with Congress on all critical national security issues 
germane to my portfolio in a spirit of openness and frankness. As soon 
as site selection criteria are established for the vaccine facility, I 
assure members of this committee that I will inform you of these 
criteria and brief you on our selection process, and progress made up 
to that point on establishing a vaccine production facility.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
               status of the cb defense detection program
    36. Senator Sessions. Dr. Klein, if confirmed you will be leading 
an office with an extremely important mandate. The bio-terrorist 
attacks using anthrax have shown us the need to be able to rapidly and 
accurately detect biological, chemical and radiological weapons. We 
need this technology, not only for the soldier in the field, but for 
the post office worker and in airport security offices. Indeed we need 
this technology wherever large numbers of people congregate.
    Can you tell this committee the status of the Department of 
Defense's efforts to develop an accurate system, or systems, to detect 
biological, chemical, and radiological weapons with extremely low false 
alarm rates?
    Dr. Klein. The mission of the Chemical/Biological (CB) Defense 
Program is primarily focused on the ``classical combat'' environment. 
This environment requires that the false alarm rate be taken into 
consideration with the response time, sensitivity, and other parameters 
that impact on the suitability of the products to the soldier in the 
field. The technology used in CB Defensive equipment has the potential 
for other environments, i.e. post offices and airports, but would 
require testing and evaluation of their effectiveness in those 
environments and forces various performance parameters to be re-
balanced for the specific environment. The capabilities to accurately 
detect biological, chemical, and radiological materials with extremely 
low false alarm rates are in various stages depending on the nature of 
the material. This assessment is focused on a select subset of 
biologicals and chemicals (i.e. warfare materials) and not the entire 
list of toxic industrial materials.
    The status of the identification of biological materials in a 
localized environment (i.e. next to the detector) is adequate but 
requires the use of multiple tests to provide the level of confidence 
needed for a presumptive identification of the biological materials. 
Efforts are currently underway to enhance this capability to identify 
with fewer tests. The status of the identification for early warning is 
inadequate; the current capability is to provide an inferred warning 
that something might be out there thus triggering the use of other 
assets to provide additional information. For this area, technology is 
the current limiting factor.
    The status of the identification of chemical materials is adequate 
in both the localized environment and for early warning. There are 
still some areas of improvement (i.e. size, weight, and increased 
sensitivity while maintaining low false alarm rates) that are desired 
and are currently being addressed within the development community.
    The status of the identification of radiological materials is 
adequate in the localized environment. There are a number of commercial 
sources that can provide this capability since it is widely needed 
within the civilian sector (i.e., hospitals, etc.). 

                status report of dod's research efforts
    37. Senator Sessions. Please provide this committee with a status 
report on DOD's research efforts, and let us know if you need any more 
support from Congress.
    Dr. Klein. The Department appreciates the strong support provided 
by Congress over the past several years towards improving our Nation's 
chemical and biological defense research efforts.
    In regard to medical chemical and biological defense research, the 
Department's mission is to preserve combat effectiveness by timely 
provision of medical countermeasures. A key research initiative to 
improve chemical and biological defense medical readiness includes 
enhanced medical diagnostic capability for diseases and injuries caused 
by chemical and biological warfare agents. Diagnostic research efforts 
are currently conducted within the Defense Technology Objective (DTO), 
Common Diagnostic Systems for Biological Threats and Endemic Infectious 
Diseases. The Chemical and Biological Defense Program (CBDP) utilizes 
DTOs to focus on more mature medical technologies for advancement 
through the acquisition process.
    Recent bioterrorism incidents with anthrax spores have heightened 
our interest in improving our diagnostic capabilities, particularly 
with regard to biological warfare agents. A key objective of our 
current biological diagnostic research is to develop deployable, state-
of-the-art systems, including reagents, protocols, training and devices 
to be used by medical personnel to confirm a clinical diagnosis of 
infection with any biological threat agent or endemic infectious 
disease of military importance. The scope of this effort includes 
evaluating the advanced medical diagnostic research being conducted by 
the Defense Advanced Research Projects Agency (DARPA) with a 
consideration for transitioning the most promising technologies into 
the Department's CBDP to support the warfighter.
    With regard to chemical medical diagnostic capabilities, our 
overall objective is to diagnose, to determine a prognosis for, and to 
manage the joint service warfighter exposed to chemical warfare agents. 
This research objective involves developing effective, field-deployable 
diagnostic equipment, skin and wound decontamination products, 
pharmaceutical treatments, and practical clinical strategies to aid in 
the clinical management of chemical warfare agent casualties.
    In addition to our efforts to enhance medical chemical and 
biological defense diagnostic capabilities, the Department conducts 
significant research in developing pre-treatments and post-exposure 
therapeutics.
    Currently, there are three medical chemical defense and seven 
medical biological defense DTOs. The medical chemical defense DTO 
research efforts focus on (1) the development of medical 
countermeasures against vesicant injury (i.e., post-exposure 
therapeutic); (2) the development of a chemical agent prophylactic 
(i.e., pre-treatment); and (3) the development of an active topical 
skin protectant (i.e., pre-treatment). The medical biological defense 
DTO research efforts focus on the development of vaccines against a 
variety of pathogens. The medical biological defense DTO research 
efforts address vaccine development. For example, there are individual 
DTOs for the development of vaccines against anthrax, plague, 
encephalitis viruses, and Brucellae. There are also DTOs for the 
development of a multiagent vaccine delivery approach that could be 
used to immunize concurrently against a range of agents, as well as a 
needle-less alternative to the injection of recombinant protein-based 
vaccines. Finally, there is a seventh biological medical defense DTO to 
develop state-of-the-art technologies capable of diagnosing biological 
warfare agents in clinical specimens.
    DOD's Non-Medical Science and Technology (S&T) Program conducts a 
number of research efforts in technologies for detection, warning, and 
identification of biological and chemical threat materials. The 
principal focus is battlefield-related scenarios; however, the research 
readily leverages into solutions for domestic and homeland defense 
detection applications.
    Current and near-term fielded technologies for biological 
identification rely on antibody-based, single use assays in various 
implementations from hand-held to automated multiassay environmental 
diagnostics. The non-medical research program is investigating several 
approaches to expand the number of agents detectable in unattended 
hardware formats while reducing overall logistical burdens.
    Identification of biological materials is limited by burden of 
time, requiring tens of minutes. Rapid detection technologies providing 
indication of biological materials in the environment within timeframes 
less than a minute have been evolved from the S&T program and are under 
development for fielding.
    Detection of aerosolized particulate threats relies upon efficient 
air sampling techniques. Research is being conducted to develop more 
efficient and smaller air samplers for incorporation with future 
smaller chemical and biological detection devices.
    The detection and identification of water-borne chemical and 
biological threats is being investigated under the DTO, Chemical 
Biological Agent Water Monitor. Candidate technologies for 
investigation have been downselected and are currently being evaluated 
against threat materials. As with the genetic discrimination technology 
mentioned above, these technology investigations will soon be entering 
technology demonstration phase. Investigations of technologies for 
detection and identification of food-borne chemical/biological (CB) 
threats are initiating this year.
    The investigation of early warning, standoff detection technologies 
continues with increased emphasis. Passive chemical detection 
technologies which rely upon ambient radiation to provide the necessary 
discrimination data are investigated under the DTO, Chemical Imaging 
Sensor, which will produce a candidate technology proving chemical 
content information at a range of several kilometers with improved 
mapping capability over current and near-term fielded approaches. 
Active standoff detection technologies, which utilize a laser to probe 
the atmosphere at significantly greater ranges, are being investigated 
to provide improved biological detection capability at ranges to tens 
of kilometers. Investment into standoff approaches, which address both 
chemical and biological detection in a single hardware configuration, 
is being increased.
    Studies of improved detection capabilities occur in the context of 
an improving understanding of the nature and impact of the threat. 
Investments have increased in the current fiscal year toward 
understanding of both chemical and biological threats, the fate of 
chemical threats in the environment (DTO entitled Environmental Fate of 
Agents), and operational endpoints under low-level chemical threat 
conditions via operational toxicology studies. The assimilation and 
fusion of data from multiple sensors to provide enhanced CB awareness 
over wide areas is the focus of an increased battle management thrust. 
Development of improved models to predict the evolution of CB hazards 
is occurring within the Joint Effects Model program recently moved into 
technology demonstration phase. Development of models to understand and 
mitigate impacts of CB threats on operations is moving into technology 
demonstration phase this fiscal year through the Joint Operational 
Effects Federation.
    Significant research is also being conducted into the technologies 
required for response to CB events in the areas of individual and 
collective protection and decontamination.
    Finally, our Chemical and Biological Defense S&T Program is being 
coordinated with those of DARPA, the Department of Energy Chemical 
Biological National Security Program, and the intelligence community 
under the auspices of the Counter Proliferation Review Committee to 
optimize leverage of national CB community efforts across the broad 
spectrum of technology application scenarios. A significant investment 
in the technology demonstration element of the DOD CBDP S&T Program is 
applied to support the evaluation and maturation of technologies 
evolving from the efforts of other government agencies.
    To summarize, I would like to say that the Department has a robust 
program and we are making significant strides in several areas. We 
appreciate the support we've received from Congress, and if further 
financial support is needed we will certainly return.
                                 ______
                                 
    [The nomination reference of Dr. Dale Klein follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 18, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Dr. Dale Klein, of Texas, to be Assistant to the Secretary of 
Defense for Nuclear and Chemical and Biological Defense Programs, vice 
Harold P. Smith, Jr., resigned.
                                 ______
                                 
    [The biographical sketch of Dr. Dale Klein, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Dr. Dale Klein
    Since 1977, Dr. Klein has been a professor in the Department of 
Mechanical Engineering (Nuclear Program) at the University of Texas at 
Austin. He has been the Vice-Chancellor for Special Engineering 
Programs at the University of Texas System since 1998. Dr. Klein also 
serves as the Chairman and Executive Director of the Amarillo National 
Research Center (ANRC), during which time he has overseen over $45 
million of funding concerning plutonium research and nuclear weapon 
dismantlement issues.
    Dr. Klein has held other positions during his tenure at UT Austin: 
Director of the Nuclear Engineering Teaching Laboratory; Deputy 
Director of the Center for Energy Studies; and Associate Dean for 
Research and Administration in the College of Engineering.
    In addition to his duties at UT and the ANRC, Dr. Klein is an 
active member of several Department of Energy national committees, 
including the Nuclear Energy Research Advisory Committee in July 2000.
    He has been honored with the distinction of Fellow of the American 
Society of Mechanical Engineers and the American Nuclear Society. Dr. 
Klein has also received many awards, including the Joe J. King 
Professional Engineering Achievement Award by UT Austin and Engineer of 
the Year for the State of Texas by the Texas Society of Professional 
Engineers. Having received his Ph.D. in nuclear engineering from the 
University of Missouri-Columbia, Dr. Klein has been honored with the 
University of Missouri Faculty-Alumni Award and the University of 
Missouri Honor Award for Distinguished Service in Engineering.
    Since joining UT Austin, Dr. Klein has received over $50 million in 
research funding, equipment, and educational support. He has published 
over 100 technical papers and reports, and co-edited one book. He has 
made over 300 presentations on energy and has written numerous 
technical editorials on energy issues that have been published in major 
newspapers throughout the United States.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Dale Klein 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Dale E. Klein.

    2. Position to which nominated:
    Assistant to the Secretary of Defense (Nuclear, Chemical, and 
Biological Defense).

    3. Date of nomination:
    October 18, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 6, 1947; Clarksburg, Missouri.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rebecca Anne Klein (maiden name Armendariz).

    7. Names and ages of children:
    N/A.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1961-1965, Tipton High School; graduated.
    1965-1970, University of Missouri, Columbia; 1970 B.S. Mechanical 
Engineering.
    1970-1971, University of Missouri, Columbia; 1971 M.S. in 
Mechanical and Aerospace Engineering.
    1973-1977, University of Missouri, Columbia; 1977 Ph.D. in Nuclear 
Engineering.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1977 to Present, The University of Texas at Austin, Professor of 
Mechanical Engineering (Nuclear Program), Austin, TX.
    1994 to Present, The University of Texas System, Vice Chancellor of 
Special Engineering Programs, Austin, TX.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    TRAB, Texas Radiation Advisory Board, Chairman.
    DOE, Department of Energy, Nuclear Energy Research Advisory 
Committee, member.
    TCET, Texas Council on Environmental Technology, volunteer 
appointment by Governor Rick Perry.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    ARDT, Advocates for Responsible Disposal in Texas, Board Member.
    CSIS, Center for Strategic and International Studies, Consultant.
    Blue Ridge Technologies, Consultant.
    UT System, Vice-Chancellor.
    UT Austin, Professor.
    UT Austin, Radiation Safety Committee, Chairman.
    UT Austin, Nuclear Engineering Teaching Lab, Interim Director.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    ASME, American Society of Mechanical Engineers, member and fellow.
    ANS, American Nuclear Society, member and fellow.
    ASEE, American Society for Engineering Education, member.
    NSPE, National Society of Professional Engineers, member.
    TSPE, Texas Society of Professional Engineers, member.
    IC2, Innovation, Creativity, and Capital, member and Centennial 
fellow.
    Pi Tau Sigma, member.
    Tau Beta Pi, member.
    Omicron Delta Kappa, member.
    Pi Mu Epsilon, member.
    Phi Kappa Phi, member.
    TRAB, Texas Radiation Advisory Board, Chairman.
    ARDT, Advocates for Responsible Disposal in Texas, Board Member.
    DOE, Department of Energy, Nuclear Energy Research Advisory 
Committee, member.
    TCET, Texas Council on Environmental Technology, volunteer 
appointment by Governor Rick Perry.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    George W. Bush.
    J. ``Jake'' Pickle
    PACE, Political Action Committee for Engineering (Texas).

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given numerous talks on Nuclear Energy and Nuclear 
Dismantlement. Most of these are general information with no 
``official'' prepared remarks. See first paragraph (Oral Presentations) 
on List B.

    17. Commitment to Testify Before Senate Committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Dr. Dale Klein.
    This 4th day of October, 2001.

    [The nomination of Dr. Dale Klein was reported to the 
Senate by Chairman Levin on November 8, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 8, 2001.]
                              ----------                              

    [Prepared questions submitted to Peter B. Teets by Chairman 
Levin prior to the hearing with answers supplied follow:]

                                                  November 5, 2001.
The Hon. Carl Levin,
Chairman, Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: Enclosed herewith are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                                    Peter B. Teets.
cc:
The Honorable John Warner,
Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. My understanding is that these reforms have been 
institutionalized and made part of the daily operations, oversight, and 
management of the Department of Defense in general and the U.S. Air 
Force in particular. I am aware that the sweeping changes produced by 
Goldwater-Nichols require continued diligence to ensure full compliance 
with the intent of the legislation.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Goldwater-Nichols has been remarkably successful in getting 
the services to work together as a joint team. For a decade and a half 
now, they've been a much more effective instrument of national security 
policy due, in part to the clearly defined position and authority of 
the Chairman, Vice Chairman, and combatant commanders.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support full implementation of the Goldwater-Nichols 
reforms and agree with its goals. The enactment of Goldwater-Nichols 
significantly improved the organization of the Department of Defense, 
focused the joint warfighting capabilities, enhanced the military 
advice received by the Secretary of Defense, and increased the 
integration of service capabilities.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. Fifteen years of experience under Goldwater-Nichols has 
meant significant changes in the way the Defense Department operates. I 
am certain that legislative changes could provide further improvements. 
However, I would prefer reserving judgment on this until, if I am 
fortunate enough to be confirmed, I have studied any specific proposals 
and acquired some experience as the Under Secretary of the Air Force. 
At that time, I would be pleased to share my thoughts with the 
committee as appropriate.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Under Secretary of the Air Force?
    Answer. The Secretary of the Air Force, pursuant to 10 U.S.C. 8013 
and Secretary of the Air Force Order 100.1, is responsible for and has 
the authority necessary to conduct all affairs of the Department of the 
Air Force. Subject to the Secretary's direction and control, the Under 
Secretary is authorized to act for and with the authority of the 
Secretary of the Air Force on all matters for which the Secretary is 
responsible. In addition, the Under Secretary of the Air Force will 
serve as the Director of the National Reconnaissance Office (DNRO), and 
will have Milestone Decision Authority for Department of Defense (DOD) 
Space Major Defense Acquisition Programs and designated space programs 
as described in Secretary Rumsfeld's memorandum of October 18, 2001, on 
the subject of National Security Space Management and Organization.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As president and chief operating officer of Lockheed Martin 
Corporation, I was responsible for a broad range of defense programs 
for all the services from 1997 through 1999. I have an extensive 
background and experience in space systems, having started working on 
the Titan III Space Launch Vehicle in 1963 for Martin Marietta 
Astronautics in Denver, and serving as president of the Denver 
Operation from 1985 to 1993. In addition, I served as president of 
Martin Marietta Space Group prior to its merger with Lockheed Martin in 
1995. In all of these roles I have had the opportunity to develop 
excellent working relationships with talented career military 
personnel, civilian Air Force and DOD personnel, and a broad range of 
industrial counterparts. As a result, I feel well qualified to take on 
the unique challenges associated with this position of Under Secretary 
of the Air Force.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Under Secretary of 
the Air Force?
    Answer. A complete understanding of current Air Force and Defense 
Department issues is essential to my ability to discharge these 
important duties. I pledge to diligently study the broad national 
security issues that will require my attention if I am confirmed.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed, I expect the Secretary to prescribe for me 
duties that will assist him in carrying out his responsibility to 
conduct all affairs of the Department of the Air Force. A central focus 
will be on space activities as designated by the Secretary of Defense, 
consistent with my planned role as DNRO.
    Question. In carrying out your duties, how will you work with the 
following officials:
    The Director of Central Intelligence.
    Answer. If confirmed, I intend to work closely with the DCI, and in 
my role as DNRO to ensure national and Defense intelligence programs 
are planned and executed to achieve optimal end-to-end capabilities.
    Question. The Under Secretary of Defense (Acquisition, Technology 
and Logistics).
    Answer. If confirmed, I will closely work with the Under Secretary 
of Defense (Acquisition, Technology and Logistics) to carry out the 
designated role of the Department of the Air Force as the Executive 
Agent for Space within the Department of Defense, with Department-wide 
responsibility for planning, programming, and acquisition of space 
systems. I will serve as the Acquisition Executive for Space within the 
DOD, with Milestone Decision Authority for all Space Major Defense 
Acquisition Programs and designated space programs.
    Question. The Assistant Secretary of the Air Force (Acquisition).
    Answer. If confirmed, and in the absence of the Secretary, I would 
have full authority over the Department of the Air Force pursuant to 
the successorship of duties as indicated in 10 U.S.C. Section 8017. In 
that event, all the Assistant Secretaries, including Acquisition would 
report to me. If confirmed, in my role as being responsible for space 
acquisition, I will work closely with the Assistant Secretary for 
Acquisition to ensure interoperability where appropriate, and to make 
efficient use of Acquisition resources.
    Question. The other service acquisition executives regarding 
management of their space-related programs.
    Answer. If confirmed, I will work closely with the Department of 
Defense and our Service counterparts to ensure space acquisition 
planning, programming and budgeting activities are properly coordinated 
and implemented, and I will serve as Milestone Decision Authority for 
all Space Major Defense Acquisition Programs and designated space 
programs.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Under Secretary of the Air Force?
    Answer. If confirmed, the major challenge will be to provide 
leadership for all National Security Space activities. This will 
involve active participation by multiple organizational elements 
including DOD, Air Force, Army, Navy and NRO organizations.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed as the next Under Secretary of the Air Force, 
I will work closely with each of the organizations involved in National 
Security Space activity to first understand their unique goals, 
objectives and challenges and then to build a solid, integrated plan 
for the future that is embraced by all constituents.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Under Secretary of the Air 
Force?
    Answer. I believe that the most serious problems include developing 
an integrated vision and plan for National Security Space, cultural 
integration of organizational elements, and span of control.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would work diligently to have a National 
Security Space Program Assessment for the 2003 President's budget and a 
National Security Space Plan for the 2004 Program Objective Memorandum 
(POM) cycle.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Under Secretary of 
the Air Force?
    Answer. I believe that we must build an integrated National 
Security Space Plan embraced by diverse constituencies while 
maintaining a focus on Mission Success and Program execution for near 
term activity.
                    managing a wider span of control
    Question. If confirmed, you will serve two critical functions 
having to do with national security space policy and programs, one in 
the Air Force, and one as part of the Intelligence Community. 
Traditionally, the official serving in the position of the Assistant 
Secretary of the Air Force for Space has focused primarily on directing 
the National Reconnaissance Office (NRO) and the Assistant Secretary of 
the Air Force for Acquisition has been largely responsible for managing 
acquisition of Air Force space programs. In addition, the individual 
serving as the Under Secretary of the Air Force has been fully engaged 
in running the day-to-day activities of the corporate Air Force.
    If confirmed, how would you intend to undertake all of these duties 
and responsibilities?
    Answer. For the Under Secretary of the Air Force to serve in both 
an official Air Force capacity as well as the appointed position of 
Director, National Reconnaissance Office, is not without precedent. 
Since 1961, the Air Force Under Secretary has been dual-hatted as the 
Director, NRO for four separate periods totaling 18 years. In addition, 
the Secretary of the Air Force has been dual-hatted as the Director, 
NRO three times over a period of 4 years. The management span of 
control is a challenge, but well within the capacity of the Air Force 
and NRO organizational structures.
    In his 18 October memo, the Secretary of Defense stated his intent 
to designate the Air Force as the DOD Executive Agent for Space, to 
include Milestone Decision Authority for DOD space programs and 
appointment of the Under Secretary of the Air Force as the Service 
Acquisition Executive for Space. If confirmed, I will work closely with 
the Secretary and Chief of Staff to implement organizational 
realignments within the Air Force to effectively execute those 
responsibilities. Also I will work closely with the Office of the 
Secretary of Defense (OSD) to carry out the Secretary of Defense's 
direction and guidance. For example, I understand the Director of Space 
and Nuclear Forces (SAF/AQS) and the Program Executive Officer for 
Space will be realigned under the Under Secretary of the Air Force 
(USECAF) office and will support all space-related acquisition 
activities. In addition, the National Security Space Architect (NSSA) 
will be reassigned under the USECAF office and help develop long range 
space vision and architectures, assist in developing an integrated 
national security space plan, and participate in annual assessments of 
the intelligence and defense space programs and budgets. The NRO will 
also report directly to the USECAF, and if confirmed, I would plan to 
use the best practices of both the Air Force and NRO to deliver the 
most capable and affordable national security space program possible. I 
believe the Deputy Director of the NRO will continue to serve a key 
role in the daily operation of NRO activities.
                         air force space vision
    Question. The Air Force has been articulating a future vision in 
which space plays a much more significant role in terms of 
organization, planning, and operations.
    In your view, what changes need to be made in the near-term to 
expedite this conversion?
    Answer. I have been briefed that the Chief of Staff's vision for 
the future, Global Vigilance, Reach and Power centers around four key 
Air Force roles: Global Strike, HUMRO (Humanitarian Relief Operations), 
Homeland Defense, and Coalition Building. Space will provide six key 
enabling roles. They include Information Superiority, Robust 
Communication Infrastructure, Skilled Space Professionals, Modern 
Equipment, and in the future, Full Spectrum Space Capabilities. When 
horizontally integrated with other core Air Force transformational 
capabilities, and those of the other Services and Agencies, Air Force 
space will enable fulfillment of CSAF's vision.
    Question. In your view, over what period of time should this 
transformation occur?
    Answer. It is my understanding that the Air Force activated a 
Directorate of Space Operations and Integration (AF/XOS) just last 
year. As the Secretary of Defense defined responsibilities for the 
USecAF/DNRO solidifies and the Air Force matures in its role as the 
Executive Agent for Space in DOD, in my view space will be on the 
strong path for making significant contributions in the near term.
                       support to the warfighters
    Question. Do you believe that the NRO is providing adequate support 
to the Theater Commanders in Chiefs (CINCs)?
    Answer. Although I have not had the opportunity to study the 
details, I believe NRO systems give the Theater CINC a tremendous 
advantage over our adversaries. Additionally, I believe that NRO 
representatives to the theaters are working with their Intelligence 
Community and U.S. Space Command counterparts to give the Theater 
CINC's and their staffs the knowledge to fully exploit the complex 
technical capabilities of NRO systems. These NRO technical 
representatives ensure that the full capabilities of our Nation's 
investment in satellite reconnaissance are exploited to meet the 
Theater CINCs' needs.
    Question. If you are confirmed, what changes would you intend to 
make to further improve that support?
    Answer. If confirmed, I will work to focus the tremendous technical 
innovation found in the NRO and its industry partners to give our 
National leadership and Theater CINC's the information to deter 
conflict, and when necessary, to win in war.
                           nro reorganization
    Question. The NRO Commission recommended a number of organizational 
changes to the NRO.
    If you are confirmed, what changes in NRO reorganization would you 
propose?
    Answer. I fully support the Director, Central Intelligence and 
Secretary of Defense's letter to Congress in response to the NRO 
Commission. If confirmed I will work hard to implement the NRO 
Commission's recommendations consistent with DCI and Secretary of 
Defense guidance.
                  nro and related acquisition programs
    Question. Historically, the NRO has been effective at acquiring 
intelligence capabilities that are ultimately used by sister 
intelligence organizations (mission partners). The committee has been 
increasingly concerned that related investments of mission partners 
have not kept pace with NRO programs, resulting in inadequate end-to-
end capabilities. For example, NRO is acquiring a new system 
implementing a future imagery architecture (FIA). By all accounts, the 
National Imagery and Mapping Agency (NIMA) has not programmed 
sufficient investment in tasking, processing, exploitation and 
dissemination (TPED) system to take full advantage of the FIA program.
    What is your view of how the Department has managed such major NRO 
and related acquisition programs?
    Answer. I believe the Department has put increasing focus, in both 
the requirements and budget processes, on the interfaces and 
relationships between the National Foreign Intelligence Program and the 
many Defense intelligence programs. Rapid shifts in information 
technology and information processes greatly complicate our ability to 
anticipate and quantify these interfaces between large acquisition 
programs.
    Question. Are you satisfied that such programs fully consider 
optimal end-to-end capabilities?
    Answer. Given the dynamics of information technology and national 
security needs alluded to in my answer above, I don't know that we are 
fully satisfied with our end-to-end intelligence capabilities. The 
close and continuing working relationship between the Secretary of 
Defense and DCI will provide the leadership to ensure national and 
Defense intelligence programs are planned and executed to achieve 
optimal end-to-end capabilities.
    Question. What changes in process, if any, would you intend to 
pursue, assuming you are confirmed, to improve this situation?
    Answer. If confirmed, I will collaborate with other Intelligence 
Community and Defense agencies and the users of intelligence to 
continuously incorporate an end-to-end approach in all of our major 
system acquisitions.
              dod involvement in nro requirements process
    Question. One of the major initiatives undertaken by the Joint 
Requirements Oversight Council (JROC) has been to conduct an in-depth 
review of Intelligence, Surveillance, and Reconnaissance (ISR), 
requirements, capabilities and shortfalls.
    If you are confirmed, would you intend to work with the JROC in the 
future on this and related issues?
    Answer. Yes. If I am confirmed, I will continue to work with the 
JROC on this and related issues.
    Question. In your view, does the NRO and Defense requirements 
process support the timely development and fielding of needed ISR 
capabilities?
    Answer. As the Secretary of Defense and DCI have noted, the 
national security challenges of this century present a far more 
difficult problem for requirements and plans than the Cold War. Complex 
space systems, such as those developed by the NRO, take several years 
to develop. Therefore, the requirements process must provide insight 
into future needs. If confirmed, I will work with Intelligence 
Community and Defense requirements authorities to shape future ISR 
architectures that are consistent with the strategic direction of the 
DCI and Secretary of Defense.
                   science and technology investment
    Question. The investment in the Air Force science and technology 
(S&T) program has declined dramatically since the end of the Cold War. 
With the proliferation of new and asymmetric threats, the importance of 
revolutionary breakthroughs in the science and technology arena are 
more critical today than ever.
    In your view, is the current investment in the Air Force science 
and technology program adequate to face these new threats?
    Answer. There is always more that can be done to exploit the rapid 
advance of technology to enable our forces to more effectively and 
safely conduct operations. The issue is always one of balancing 
priorities against available funding. If confirmed, I will do by best 
to strike the appropriate balance.
    Question. Does the science and technology portfolio adequately 
support the warfighter of today and the future?
    Answer. I understand that the Air Force science and technology 
portfolio supports the Air Force vision of an Expeditionary Aerospace 
Force in the 21st century and is funded at a level to achieve Critical 
Future Capabilities.
    Question. If confirmed, how do you plan to balance the demands of 
the Air Force between near-term readiness and longer-term scientific 
and technological discovery?
    Answer. As with all investments, I believe that the S&T program 
needs must be balanced with the systems acquisition requirements and 
the operational and maintenance demands within the Air Force topline 
funding allocation. If confirmed, this process of balancing priorities 
will be a continuing effort involving Air Force senior leadership.
    Question. Secretary of Defense Rumsfeld has established an 
investment goal for the defense science and technology program of 3 
percent of the total defense budget.
    Do you support this goal?
    Answer. I am in complete agreement with Secretary Rumsfeld.
    Question. If confirmed, would you set a similar goal for the Air 
Force science and technology program?
    Answer. Science and Technology is the Air Force's investment in the 
future and cannot be forsaken. Already, potential adversaries possess 
capabilities challenging our own. We cannot afford to fall behind. I 
believe today's Airmen must be armed with the most advanced technology 
possible.
    Question. If so, what time frame would you place on reaching this 
investment goal?
    Answer. I would advocate reaching this goal in a reasonable time in 
balance, of course, with the Air Force's other priorities.
                  science and technology organization
    Question. In Section 252 of the Floyd D. Spence National Defense 
Authorization Act for Fiscal Year 2001, Congress required the Secretary 
of the Air Force to conduct a review of the long-term challenges and 
short-term objectives of the Air Force science and technology programs. 
This review is currently being completed. One of the issues Congress 
specifically intended to be addressed by the review is the interaction 
of the Air Force leadership with the Air Force science and technology 
executives.
    If confirmed, how would you ensure that uniformed Air Force 
officers are engaged in the science and technology process for 
determining long-term challenges and short-term objective critical for 
future defense superiority?
    Answer. I firmly believe we must focus our science and technology, 
and acquisition efforts, on valid warfighter requirements. If 
confirmed, I will ardently work to foster continuing science/technology 
and warfighter interface. The goal of this is a streamlined acquisition 
and development process geared exclusively at addressing warfighter 
requirements.
    Question. If confirmed, would you support organizational changes to 
institutionalize a direct reporting requirement from the science and 
technology executive to the Secretary of the Air Force?
    Answer. I don't have any specific recommendation at this time 
regarding organizational changes, however, if confirmed, I plan to 
devote appropriate attention to this area.
    Question. If confirmed, how do you intend to facilitate 
communication between the science and technology community and the 
warfighter?
    Answer. If confirmed, I would like to see a recurring system of 
crosstalk whereby the warfighter and the science and technology 
community regularly meet to discuss requirements and possible 
solutions.
                    science and technology workforce
    Question. Over the past few years, Congress has worked with the 
Department of Defense to waive regulations and create new hiring and 
promotion authorities so that the Department could become a more 
attractive workplace for highly trained technical workers.
    If confirmed, how would you recommend that the Air Force address 
the issue of attracting and retaining the finest technical workforce 
possible?
    Answer. I support flexibility in both hiring and compensation that 
will allow the Department of Defense to attract and retain highly 
skilled scientists and engineers who can meet the dynamic technological 
challenges of the 21st century. Such flexibility is needed to help 
level the playing field with private industry. Although I have not had 
the opportunity to look at specific hiring authorities in detail, if 
confirmed, I will certainly focus on the challenges the Air Force 
faces.
    Question. Do you have specific recommendations for legislative 
changes or new regulatory relief that would better enable you, if 
confirmed, to compete with the private sector for these types of 
employees?
    Answer. I have no specific recommendations at this time.
                         technology transition
    Question. Technology transition--the ability to rapidly transition 
mature technologies out of laboratories and into the hands of the 
warfighter--has been identified as a difficult hurdle for the 
Department of Defense. Both the lack of adequate funding for 
transitioning breakthrough technologies and the inadequate buy-in from 
the user community have been cited as primary obstacles for technology 
transition.
    If confirmed, how would you ensure that technologies are rapidly 
transitioned from the laboratory into the hands of the warfighter?
    Answer. I believe valid warfighter requirements must drive our 
investment in science and technology and our acquisition efforts. The 
key is to foster a recurring interface between science/technology and 
our warfighters with a goal of streamlining the acquisition and 
development processes.
    Question. Are there specific initiatives you would propose, if 
confirmed, to address both the funding and user buy-in issue?
    Answer. I have no specific initiatives to propose at this time.
                                 space
    Question. The Air Force will have an increasing role in the 
operation and acquisition of space systems in the future.
    If confirmed, what steps would you take to ensure that there is 
good participation by the other military departments and services in 
space programs and that their requirements are addressed and met?
    Answer. The Secretary of Defense has directed implementation of 
recommendations from the Space Commission that will significantly 
enhance the integration and coordination of all the Department's space 
activities. If confirmed, I will coordinate the actions of 
organizations such as the Joint Staff, U.S. Space Command, the National 
Security Space Architect (NSSA) and others. Also, I will ensure that 
the equities of every member of the defense space community are 
protected.
    Question. If confirmed, what role do you expect to play in the 
space missions of the Air Force?
    Answer. If confirmed, I expect to be charged by the Secretary of 
the Air Force with the authority and responsibilities to ensure the Air 
Force carries out its responsibilities as DOD's Executive Agent for 
Space to include organizing, training and equipping our space forces to 
successfully execute the missions of the Air Force.
    Consistent with Air Force responsibilities as the Executive Agent 
for DOD-wide space planning, programming and acquisition, I would 
expect to play an active leadership role in overseeing defense-wide 
space planning, programming and acquisition to ensure the most 
effective national security space program across the board.
    Question. Do you agree with the organizational recommendations of 
the Space Commission? Where you do not agree, please explain why and 
how you would address the problems identified by the Space Commission.
    Answer. I fully support the intent and specific recommendations of 
the Space Commission report. Centralizing space acquisition as 
specified by the Commission under the SAF/US-DNRO will allow a much 
more effective national security space program in the future. The Air 
Force is currently working with the NRO, OSD, the other Services and 
Agencies, and the Intelligence Community to fulfill the Secretary of 
Defense's implementation guidance released on 18 October, 2001.
    Question. Many high priority national security space missions are 
not necessarily high priority missions for the Air Force.
    If confirmed, how would you ensure that the Air Forces address any 
such missions if the Air Force assumes greater responsibility in the 
future for space or if the Air Force becomes the Department of Defense 
executive agent for space?
    Answer. If confirmed, I would expect to play an active role within 
the Air Force planning and advocating space capabilities to meet the 
needs of both the Air Force and the Joint warfighter. Furthermore, the 
national security space community is developing a National Security 
Space Plan and Program Assessment to help guide and assess DOD and 
Intelligence space programs. If confirmed, I will use these processes 
as well as my role within the Air Force corporate structure to ensure 
that the Air Force and DOD increase its focus on space missions. As the 
DOD Executive Agent for space, the Air Force will assume a leadership 
role in the planning, programming, and acquisition of space systems. 
Our vision for the Air Force's future role in space is one that 
recognizes the unique contributions and advantages space provides to 
our national security. The organizational changes recommended by the 
Space Commission and directed by the Secretary of Defense will lead to 
streamlined acquisition, more comprehensive planning and programming, 
and better capabilities for the warfighter. The Air Force believes 
space will be a critical ``center of gravity'' in all future conflicts 
and that we must fully integrate space capabilities into current and 
future warfighting missions.
                         bomber force structure
    Question. If confirmed, would you commit to study the bomber fleet 
and ensure that the Air Force plans for the future of the bomber fleet 
permit the fleet to meet all potential future missions that might be 
identified in either the Nuclear Posture Review, the Quadrennial 
Defense Review, or the National Security Strategy?
    Answer. I understand the Air Force is currently updating the bomber 
roadmap and that an initial draft is currently in coordination. If 
confirmed, I expect to support the Secretary of the Air Force as the 
Air Force examines the future needs and options for the bomber force.
                        nuclear force structure
    Question. Do you support repeal of section 1302 of the 1998 
National Defense Authorization Act?
    If confirmed, would you support retirement of the W-62 warhead when 
the Peacekeeper ICBM is retired?
    Answer. Yes. I understand the Air Force has programmed the 
retirement of the MK12/W62 warhead from the active ICBM warhead fleet. 
The Safety Enhanced Reentry Vehicle (SERV) program will provide the 
design and equipment to place the MK21/W87 warhead, (being removed from 
the Peacekeeper) on the MMIII as a replacement for the W62.
                         unmanned air vehicles
    Question. In the Floyd D. Spence National Defense Authorization Act 
for Fiscal Year 2001, Congress set a goal that, within 10 years, one-
third of U.S. military operational deep strike aircraft would be 
unmanned. In addition, Congress invested an additional $50 million 
above the President's budget request in the Air Force Unmanned Combat 
Air Vehicle (UCAV).
    Do you support the 10-year goal of one-third of U.S. military 
operational deep strike aircraft being unmanned?
    Answer. Yes. Based on my understanding I fully support the AF/DARPA 
project that is underway and that was chartered to achieve that very 
goal. I understand that the focus today is on developing UCAVs for the 
Suppression of Enemy Air Device (SEAD)/Strike mission. Other potential 
UCAV roles being explored include directed energy, electronic attack, 
and Intelligence, Surveillance and Reconnaissance (ISR) missions.
                           officer personnel
    Question. The Air Force has in the past acknowledged problems in 
its officer personnel processes, including promotions, early retirement 
boards, and similar actions. Recently, a case involving allegations of 
reverse discrimination in a selective early retirement board was 
settled before trial.
    What is your opinion as to the health of the officer personnel 
system of the Air Force? Do you believe that significant change is 
needed? If so, what changes would you recommend?
    Answer. I have no detailed understanding of these particular 
issues. However, if confirmed I will work with my staff and this 
committee to review the existing promotion processes and make 
improvements when required.
                          enlisted promotions
    Question. The Air Force has long used a system in which enlisted 
personnel undergo standardized testing for promotion to E-5 through E-
7. Recently, allegations have been made that this system is not an 
effective way of testing competence in specialties involving manual 
skills. It has also been alleged that it unfairly penalizes minority 
members. Lastly, there are sporadic problems reported regarding 
cheating on the tests, for which group study is prohibited.
    What are your views about the Air Force's reliance on this system?
    Answer. I have no detailed understanding of these particular 
issues. However, if confirmed I will work with my staff and this 
committee to review the existing promotion processes and make 
improvements when required.
                              encroachment
    Question. On November 27, 2000, the Senior Readiness Oversight 
Council identified several ``encroachment'' problems confronting the 
Department of Defense including protection of endangered species, 
unexploded ordnance and other constituents, commercial demand for 
bandwidth and frequency, sustainability of the maritime environment, 
demand for use of airspace, protection of air quality, abatement of 
airborne noise, and growth of urban areas. At a March 20, 2001, hearing 
before the Readiness and Management Support Subcommittee, 
representatives of the military services expressed concern that this 
encroachment was hindering their legal responsibility under Title 10, 
United States Code, to train the forces.
    If confirmed, what actions would you propose to address these 
problems?
    Answer. I believe there must be a balance between test, training, 
and readiness requirements and responsible stewardship. If confirmed, I 
will foster the development and maintenance of partnerships with our 
sister services, civilian government agencies, tribal governments, and 
other stakeholders that serve to address areas of mutual interest in 
order to sustain our required access to ranges and airspace.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Daniel K. Akaka
                              encroachment
    1. Senator Akaka. I am interested in your thoughts about 
encroachment. I am pleased to learn of your intent to develop 
partnerships with the other services, civilian government agencies, 
tribal governments, and other stakeholders. By other stakeholders, I 
would hope you mean the communities surrounding the training ranges and 
installations where we face encroachment challenges.
    Do you have any specific thoughts regarding how you plan to address 
encroachment issues as the Under Secretary of the Air Force?
    Mr. Teets. This is an important issue not only for the Air Force 
and the Department of Defense, but also for all Americans. The core of 
our military readiness is realistic testing and training conducted on 
military lands and in the special use airspace over our Nation and 
overseas. I believe that, as a Nation, we owe our men and women in 
uniform the best equipment and training possible. I also believe that 
if we do not work this issue aggressively, we may see a reduction in 
combat proficiency from less realistic testing and training. A key 
solution to the encroachment challenge is effective 2-way 
communication. The AF actively seeks to communicate and form 
partnerships of the type you mentioned. If confirmed, I will continue 
to work with the other services, Federal and State agencies and local-
communities to help fully meet this challenge.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                        defense of space systems
    2. Senator Thurmond. Although increased intelligence collection on 
our adversaries' intention against our space platforms is critical, it 
seems to me that the Nation has to be prepared to defend our space 
systems.
    What priority should the Nation place on developing anti-satellite 
systems to protect our critical space platforms?  
    Mr. Teets. Protection of our critical space systems should clearly 
be a high national priority. We must recognize that our adversaries 
could attack our systems. No single approach will ensure protection 
against all potential threats. We must be able to detect and 
characterize attacks against any element of our space systems, and then 
be prepared with appropriate measures to withstand and respond.
    An anti-satellite capability could potentially deter and counter 
space-based threats, should such threats emerge. The priority given to 
developing anti-satellite systems to support protection will depend on 
the level of national concern about the space-based threat. If 
confirmed, I will work to ensure our critical space platforms are 
protected.

                             space program
    3. Senator Thurmond. Early in the manned space program the United 
States decided that the program should be a civilian program. We have 
continued in that tradition through several administrations. As we 
begin this new century and face new challenges, some individuals 
propose that we should initiate a military manned space program. 
    What are your views regarding a military manned space program?
    Mr. Teets. To my knowledge, the Air Force has no requirements for 
manned space flight.

                          future space program
    4. Senator Thurmond. A key factor in providing for our national 
security hinges on our ability to control space. We currently have the 
space systems to provide for that security. My concern is that we may 
not have those systems in the future.
    In your opinion, what are the types of space systems that the 
Nation must focus on to insure our continued control of space? 
    Mr. Teets. To ensure that our national security space systems 
continue to provide the strategic advantage, we'll pursue a range of 
improvements to our space control capabilities: Key focus areas 
include:

    (1) Space situational awareness. We must improve our capabilities 
to understand which objects are threats and what they are doing. Space 
situational awareness is the critical enabler for timely defensive and 
offensive responses against space threats.
    (2) Negation. The need to be able to deny adversaries their use of 
space systems and services for purposes hostile to U.S. national 
security interests.
    (3) Space control infrastructure. A space range and credible 
``Space Aggressor'' emulation of foreign threats should be developed to 
provide the opportunity to test, train, and exercise for space control 
in an operationally realistic environment.

    If confirmed, I will work to ensure these improvements are 
implemented.

                         installation readiness
    5. Senator Thurmond. At the Readiness Subcommittee hearing on 
military construction, General Robbins, the Civil Engineer of the Air 
Force, testified that the Air Force current backlog in restoration and 
modernization exceeds $5.6 billion. Although this backlog is less than 
the other services, it has a significant impact on readiness and 
quality of life in the Air Force.
    As the Under Secretary of the Air Force, you will have a 
significant role in determining the allocation of resources. What 
priority will you place on reducing this significant backlog in the 
sustainment of Air Force installations?
    Mr. Teets. I concur that this backlog impacts both the mission and 
the quality of life of the men and women in our Air Force. Besides 
obvious mission impacts due to degraded airfields and deficiencies in 
key operational facilities, the quality of the facilities where our 
troops and their families work, live, and play is a key element that 
affects our airmen's preparedness to focus on the mission. I recognize 
that their welfare, whether they are hard at work at their home base or 
deployed to a variety of locations around the world, especially during 
these troubled times, is critical to the readiness of the force. If 
confirmed, I will give full consideration to allocating the necessary 
resources to reduce this backlog and thus improve mission performance 
and the quality of life in our Air Force.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                     inherent conflict of interest
    6. Senator Smith. Today, the Air Force and the other Services 
submit their budgets to the Secretary of Defense for him to assess and 
adjust. In the future, under plans, the Air Force will submit its space 
budget to itself, creating what I see as an inherent conflict of 
interest.
    If for example, you felt that the Air Force corporate decision to 
delay the Space Based Radar program was wrong, from a DOD perspective, 
how could you both support the Air Force budget submission and conduct 
a fair and honest assessment for all DOD?
    Mr. Teets. The Air Force's role as Executive Agent for Space 
includes providing space capabilities for the DOD and working with all 
services and agencies to integrate space into joint warfighting. If 
confirmed, I will work closely with all the Air Force leadership to 
ensure DOD space requirements and programs have full attention and 
priority throughout the AF budget process. I believe the end result 
will be a balanced approach to air and space programs. Should budgetary 
constraints limit space programs I believe are vital, I will work with 
DOD leadership to advocate fixes and the resources to remedy them.
    Regarding the space assessment, we expect this to be an open and 
inclusive process, involving all services and agencies, which will 
compare DOD-wide space programs and budgets against approved 
requirements, plans and guidance. This process will provide an 
objective means to develop and advocate space capabilities across the 
DOD.

                          joint vs. autocratic
    7. Senator Smith. I understand the Secretary of Defense is still 
working on changes to your potential job description, and soon he will 
be delegating new defense-wide authorities to the Under Secretary of 
the Air Force to oversee all DOD space activities (consistent with the 
Space Commission recommendations).
    How would you, as and Air Force leader, handle that new authority? 
    Mr. Teets. If confirmed, I will work closely with the Secretary of 
Defense, the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (AT&L), and the other senior Service Secretaries and 
Chiefs to implement the recommendations of the ``Report of the 
Commission to Assess U.S. National Security Space Management and 
Organization.''
    A major responsibility of the Under Secretary of the Air Force will 
be to serve in both an official Air Force capacity as well as the 
appointed position of Director, National Reconnaissance Office. This is 
not without precedent. Since 1961, the Air Force Under Secretary has 
been dual-hatted as the Director, NRO for four separate periods 
totaling 18 years. In addition, the Secretary of the Air Force has been 
dual-hatted as the Director, NRO three times over a period of 4 years. 
A complete understanding of Air Force, Defense Department, and 
Intelligence Community issues is essential to my ability to discharge 
all the authorities conferred on the Under Secretary of the Air Force. 
I pledge to diligently study the broad national security issues that 
will require my attention if I am confirmed. 

    8. Senator Smith. Would you make decisions jointly with your sister 
services or would you dictate the way ahead?
    Mr. Teets. If confirmed, I would pursue the recommendations of the 
``Report of the Commission to Assess U.S. National Security Space 
Management and Organization.'' As a first step, I would begin work 
toward a National Security Space management process that would include 
members of both defense-wide and intelligence organizations. I would 
expect the other services to be full partners in that process.

                      merging dod and intelligence
    9. Senator Smith. According to the Secretary of Defense's plan, the 
Under Secretary of the Air Force will also become Director of the 
National Reconnaissance Office (NRO). 
    Would you build on efforts to align space authority within DOD and 
also integrate DOD and Intelligence space activities?
    Mr. Teets. Aligning space authority within the DOD was recently 
initiated and is progressing. I support the Secretary of Defense's 
approach in his October 18, 2001 memo on National Security Space 
Management and Organization and will build upon these implementation 
actions.
    The integration of DOD and Intelligence space activities depends on 
an array of requirements and technical and programmatic variables. If 
confirmed, I will support the Secretary of Defense and the Director of 
Central Intelligence to plan, and develop space systems that best 
achieve our national security space goals, respecting the equities of 
all space users.

    10. Senator Smith. Would you merge your DOD and Intelligence space 
management teams or keep them separate?
    Mr. Teets. If confirmed, I will implement guidance already provided 
by the Secretary of Defense, and the Director of Central Intelligence 
on space organization and management issues. This guidance directs 
sharing of ``best practices'' between NRO and Air Force programs, which 
I fully support. Further merger or integration of DOD and the 
Intelligence community space management teams will need to be evaluated 
based on all space users, and the effective, efficient management of 
space programs.

                      aerospace vs. air and space
    11. Senator Smith. The new Air Force Chief of Staff, General 
Jumper, took his job and immediately changed the long-standing Air 
Force vision from an ``Aerospace Force'' (implying seamless continuity) 
to ``Air and Space Force'' (emphasizing the distinction between the 
two). 
    What is your vision for the Air Force regarding this terminology?  
    Mr. Teets. The Air Force's vision is Global Vigilance, Reach, and 
Power. It remains a concise and accurate description of the capability 
the Air Force provides the Joint Forces Commander to fight our Nation's 
wars.
    In choosing the words ``Air and Space'' Force versus ``Aerospace'' 
Force, General Jumper is acknowledging the findings of the Space 
Commission. The Space Commission report does not use the term 
``aerospace'' because it fails to give the proper respect to the 
culture and to the physical differences that abide between the 
environment of air and the environment of space. General Jumper feels 
we should respect those differences.
    One way we respect those differences is by understanding we need to 
develop space warriors--those trained in the planning and execution of 
space-based operational concepts. At the same time, these warriors are 
still Airmen who work in our Air and Space Operations Centers, 
integrating space capabilities with air and surface forces. Air and 
space capabilities have to work together to bring the right warfighting 
effect to the right target at the right time. We will accomplish this 
transformational marriage of air and space capabilities through the 
horizontal integration of our manned, unmanned, and space platforms.
    Another way we respect the differences between air and space is 
through the transformation of our organizations. On 1 October, 2001, 
the Air Force implemented a key Space Commission recommendation when we 
realigned the Space and Missile Systems Center under Air Force Space 
Command. The result is a clear operational focus on the development of 
our space capabilities and the acquisition of space systems.
    America's airmen--our air and space warriors--whose job it is to 
leverage both air and space, will combine their skills and their 
talents to bring the greatest asymmetrical advantage to those 
commanders whose job it is to win America's wars, not only the war we 
are in today, but every war.

                           space integration
    12. Senator Smith. I don't think there is anything wrong in 
recognizing the differences between the air and space communities 
within the Air Force, as long as space is fully integrated with air 
operations and land and sea operations. I had the opportunity to meet 
with General Mike Hamel late last spring. General Hamel's job in the 
Air Force is to facilitate that integration. I think he is fighting a 
good fight, but we are still losing the battle. For example, our 
strategic B-2 bomber does not have the satellite communications it 
needs when it dies away from the base around the world--that does not 
make sense.
    What would you do to help someone like General Hamel ensure space 
systems get integrated onto our warfighting capabilities?
    Mr. Teets. Space systems already are very much integrated into our 
warfighting capabilities right now. We're building on our current 
capability by aggressively testing new and emerging space capabilities 
and incorporating them into our vision of the 21st century air and 
space force. If confirmed, I will continue to ensure these efforts 
continue.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                      future aircraft procurement
    13. Senator Sessions. Mr. Teets, the Quadrennial Defense Review was 
recently published and it emphasizes the need for forward basing. The 
wisdom of this is clearly apparent from our current conflict in 
Afghanistan.
    Given the fact that we have had difficulty in obtaining basing 
rights for our Air Force's tactical aircraft fleet and have had to rely 
on our long range bombers and Naval Aviation, what is your vision for 
future aircraft procurement?
    Mr. Teets. Bomber modernization is critical to maintaining our 
ability to project air power around the world. The Air Force will 
continue upgrading bomber lethality, survivability, and responsiveness. 
In addition, we are engaged in studies to identify what our next long-
range strike capability should be and when it needs to be fielded. If 
confirmed, I look forward to working with the Secretary of the Air 
Force and his staff to integrate the lessons learned from OPERATION 
ENDURING FREEDOM into our future long-range strike procurement plans.

              joint strike force (jsf) and f-22 employment
    14. Senator Sessions. If the Air Force had the JSF and F-22 today 
could you tell me if they could be fully employed in Afghanistan today?
    Mr. Teets. Yes. The JSF will eventually replace the F-16 and the F/
A-18A/C/D, currently in use in Afghanistan today. The JSF will be 
capable of performing the same roles and missions. The F-22 will 
augment those aircraft with its inherent air-to-ground capability, 
while maintaining air supremacy for coalition forces.

                         inter-service rivalry
    15. Senator Sessions. I was very disturbed to read in the 
Washington Times yesterday that the Air Force is resisting the Navy's 
request for a transfer of the special kits to turn dumb bombs into 
smart bombs.
    I hope this is not true, but if it is I want your promise that if 
confirmed you will immediately put an end to this ridiculous inter-
service rivalry, which can only help Al-Qaeda and the Taliban, and see 
to it that the Air Force deliver to the Navy any assistance the Navy 
might need to support Central Command's combat efforts. 
    Mr. Teets. I assure you this is not true. The day prior to the 
article Air Force and Navy representatives had already worked a 
transfer of munitions, including these special kits, to support our 
warfighters. This was the second such transfer, and the fact is, that 
all of the services are working together to support the warfighters 
whether they are Navy, Army, Marine, or Air Force. As both the Chief of 
Naval Operations (CNO) and the Chief have publicly stated, our services 
have never worked closer. If confirmed, I will ensure all services work 
together to support our national goals.

                         heavy lift procurement
    16. Senator Sessions. We have all heard of the enormous quantity of 
food supplies the Air Force has delivered to the Afghan refugees. I 
suspect the current operational tempo has tested our heavy airlift 
fleet.
    Give us a status report on our C-5 and C-17 fleet. Has our recent 
experience given you any new insight into the direction of our heavy 
lift procurement plans?
    Mr. Teets. The Air Force's heavy-lift modernization plan calls for 
both the modernization of the C-5 fleet and procuring additional C-17s. 
This plan has been proven by Operation Enduring Freedom, with both the 
C-5s and C-17s unique and complementary capabilities making outstanding 
contributions to the war effort.

                            heavy lift needs
    17. Senator Sessions. During this period of conflict in Afghanistan 
are our other regional commands' heavy lift needs still being met?
    Mr. Teets. Yes. Despite enormous lift requirements we are meeting 
the other regional commands' lift requirements by utilizing USAF and 
commercial assets. If confirmed I will work to ensure our heavy lift 
needs are met.
                                 ______
                                 
    [The nomination reference of Peter B. Teets follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 30, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Peter B. Teets, of Maryland, to be Under Secretary of the Air 
Force, vice Carol DiBattiste.
                                 ______
                                 
    [The biographical sketch of Peter B. Teets, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Peter B. Teets
    Peter B. Teets is the retired president and chief operating officer 
of Lockheed Martin Corporation, a position he held from 1997 through 
1999. Teets previously served as president and chief operating officer 
of the Corporation's Information and Services Sector, a post he held 
since the Lockheed Martin merger in 1995. Prior to the merger, he was 
president of Martin Marietta Space Group.
    Teets joined Martin Marietta in 1963 as an engineer in flight 
control analysis and held progressively responsible positions since 
that time. From 1970 to 1975, he managed the integration of a new 
inertial guidance system to the Titan IIIC launch vehicle. Between 1975 
and 1980, Teets served as program manager of the Transtage project and 
later as the director of Space Systems. From 1980 until 1982, he was 
vice president of Business Development for Denver Aerospace and from 
1982 to 1985, he was the vice president and general manager of Denver 
Aerospace's Strategic and Launch Systems division. In 1985, he was 
named president of Martin Marietta Denver Aerospace, which became 
Martin Marietta Astronautics Group in 1987.
    Born in Denver in 1942, Teets received his bachelor and master of 
science degrees in applied mathematics from the University of Colorado, 
which also presented him with an honorary doctor of science degree in 
1990. In addition, Teets was named a Sloan Fellow and received a 
master's degree in management from the Massachusetts Institute of 
Technology.
    He is a Fellow of the American Institute of Aeronautics and 
Astronautics and the American Astronautical Society and was inducted 
into the National Academy of Engineering in 1999. Teets is also a 
member of the Board of Directors of the Charles Stark Draper 
Laboratory.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Peter B. Teets 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter B. Teets.

    2. Position to which nominated:
    Under Secretary of the Air Force, and Director, National 
Reconnaissance Office.

    3. Date of nomination:
    October 30, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 12, 1942; Denver, Colorado.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Vivian Brearley Teets.

    7. Names and ages of children:
    Karen K. Avery, 36; David E. Teets (Deceased, 2001); Jennifer L. 
Teets, 32; Kevin J. Teets, 31; Matthew L. Teets, 19; Christopher K. 
Teets, 17.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    East Denver High School, Sept. 1956-June 1959, High School Diploma.
    University of Colorado, Boulder, CO, Sept. 1959-June 1963, B.S. 
Applied Mathematics.
    University of Colorado, Denver, CO, Sept. 1963-June 1965, M.S. 
Applied Mathematics.
    Massachusetts Institute of Technology, Cambridge, MA, June 1977-
June 1978, M.S., Management.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President and COO, Lockheed Martin Corporation, Bethesda, MD; July 
1997-February 2000.
    President and COO, Information and Services Sector, Lockheed Martin 
Corporation, Bethesda, MD; March 1995-July 1997.
    President, Martin Marietta Space Group, Martin Marietta 
Corporation, Bethesda, MD; May 1993-March 1995.
    President, Martin Marietta Astronautics, Martin Marietta 
Corporation, Denver, CO; June 1963-May 1993.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director, The Draper Laboratory, Cambridge, MA.
    Director, PRWT Services, Inc., Philadelphia, PA.
    Director, Alumbre Technologies, Inc., Rockville, MD.
    Member of Executive Committee, Next Gen. Capital Fund II, Fairfax, 
VA.
    Trustee, Immediate Family Trusts.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Potomac Presbyterian Church, Potomac, Maryland; since 1993.
    Member, First Presbyterian Church of Littleton, Colorado; 1983-
1993.
    Member, Cherry Hills Country Club, Englewood, Colorado; since 1988.
    Member, Columbia Country Club, Chevy Chase, Maryland; since 1996.
    Member Congressional Country Club, Bethesda, Maryland; since 1997.
    Member, Phi Gamma Delta social fraternity since 1960; and President 
of Beta Kappa Chapter in 1962.
    Member, Tau Beta Pi Engineering Honorary Association since 1963.
    Member, Republican Party since approximately 1980.
    Member, American Institute of Aeronautics and Astronautics since 
1960, and a Fellow of the Institute since 1993.
    Member, American Astronautics Society since 1980, and a Fellow of 
the Society since 1985.
    Member, National Academy of Engineering since 1998.
    Member, CATO Institute since 2000.
    Member, Conquistadores de Cielo since 1998.
    Trustee, Falcon Foundation since 1980.
    Member, National Western Stock Show Association since 1986.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Republican Party.
    Member, Republican National Committee, 2001.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2/18/99, $1,000 to Friends of Conrad Burns (Sen. MT).
    7/19/00, $1,000 to Republican National Committee.
    10/10/00, $1,000 to Republican National Committee.
    1/3/01, $1,000 to Republican National Committee.
    1996 thru 1999, $1,040 per year to Lockheed Martin Political Action 
Committee.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Tau Beta Pi; Engineering Honorary Association.
    Fellow, AIAA.
    Fellow, AAS.
    Member, National Academy of Engineering.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Technical Articles in Journals prior to 1980.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    17. Commitment to Testify Before Senate Committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Peter B. Teets.
    This 31st day of October, 2001.

    [The nomination of Peter B. Teets was reported to the 
Senate by Chairman Levin on December 6, 2001, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 7, 2001.]

 
 NOMINATION OF MAJ. GEN. CLAUDE M. BOLTON, JR., USAF, TO BE ASSISTANT 
    SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY

                              ----------                              


                       TUESDAY, DECEMBER 4, 2001

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SR-222, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Landrieu, E. 
Benjamin Nelson, Warner, Smith, Inhofe, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; Christine E. Cowart, chief clerk; Gabriella Eisen, 
nominations clerk; and Bridget M. Whalan, special assistant.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; Maren Leed, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; and Arun A. 
Seraphin, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Brian R. Green, professional staff 
member; William C. Greenwalt, professional staff member; Mary 
Alice A. Hayward, professional staff member; Ambrose R. Hock, 
professional staff member; George W. Lauffer, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Suzanne K.L. Ross, research assistant; Scott W. Stucky, 
minority counsel; and Richard F. Walsh, minority counsel.
    Staff assistants present: Dara R. Alpert and Daniel K. 
Goldsmith.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Marshall A. Hevron 
and Jeffrey S. Wiener, assistants to Senator Landrieu; William 
K. Sutey, assistant to Senator Bill Nelson; Mark Salter, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; George M. Bernier III, assistant to Senator 
Santorum; Robert Alan McCurry, assistant to Senator Roberts; 
Charles Cogar, assistant to Senator Allard; and Derek Maurer, 
assistant to Senator Bunning.

           STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning everybody. The committee meets 
today to consider the nomination of Major General Claude 
Bolton, Jr. to be the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology. General Bolton, on 
behalf of the entire committee I would like to welcome you and 
your family to the Armed Services Committee. We have a 
tradition here of asking our nominees to introduce any family 
members that they have with them. If you have family here, 
please introduce them at this time, if you would.
    General Bolton. Mr. Chairman, good morning, and thank you 
very much for that pleasure. I would like to introduce my wife 
of almost 33 years, Linda, who is with me today. We have two 
lovely daughters. Our older daughter lives in Manhattan, New 
York, and is unable to be with us today, but our younger 
daughter, Jennifer, who lives in Virginia, is with us this 
morning. Thank you, sir.
    Chairman Levin. Well, perhaps you could wave at us and we 
will wave back at you. Nice to have you all with us.
    We always make it a point to thank family members for the 
support that they give to the nominee. It makes a huge 
difference. You are truly serving your country as well as the 
nominee by giving him the kind of support that he needs in this 
position, and I know you have done that for a long time in his 
military career, so that will be nothing new to you.
    General Bolton has worn the uniform of this Nation for some 
32 years, most recently as Commander of the Air Force Security 
Assistance Center at Wright-Patterson Air Force Base in Ohio, 
where he manages Air Force foreign military sales in the Air 
Force Materiel Command's international cooperative programs. He 
has served as the program executive officer for Air Force 
fighter and bomber programs, the first program manager for what 
became the F-22 office, a test pilot, and a decorated veteran 
of Vietnam combat missions.
    If confirmed as Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology, General Bolton will 
oversee the Army's complex acquisition contracting procurement 
and logistics systems. He will be responsible for assuring that 
our soldiers are equipped with the most advanced tools and 
technologies in the quickest, most cost-effective manner 
possible. He is well-qualified for this position. We look 
forward to asking questions of him.
    I would also note for the members and staff that are here 
that, following this open session, we will be moving to 
executive session to discuss a number of military nominations 
which have been pending before this committee.
    Is there an opening statement that you have, Senator 
Inhofe, Senator Bunning, Senator Warner?

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Mr. Chairman, I will put my full statement 
in the record. I had a very nice interview with this 
distinguished nominee, and one of the areas we discussed was 
how the President and the Secretary of Defense persuaded him to 
come back to public service. I am not sure, but he said his 
family could explain it better than he. I welcome you, sir, you 
have had a quite a distinguished career.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in welcoming General Bolton and his family. I note that 
there have been a series of nominations by Secretary Rumsfeld and the 
Bush administration that place well-qualified nominees with background 
in one particular military service into senior positions in another 
service. While this may appear curious at first glance, I think our 
Secretary of Defense is sending the message that the best people and 
ideas will thrive in any service. I am convinced after meeting with 
General Bolton last week that he is the right person, at the right time 
for this job.
    General Bolton has had a remarkable career of military service. 
Commissioned in 1969, he qualified as a fighter pilot and, over the 
course of his distinguished career, he compiled over 2,700 flying hours 
in more than 30 different types of aircraft. During the Vietnam war, he 
flew 232 combat missions, including 40 over North Vietnam.
    General Bolton has also had a very impressive acquisition 
background, serving as the first program manager for the Advanced 
Tactical Fighter Technologies Program, which evolved into the F-22 
System Program Office. He went on to serve as the Deputy Program 
Director for the B-2 System Program Office; Program Director for the 
Advanced Cruise Missile System Program Office; and from 1998 to 2000 as 
Program Executive Officer for the Air Force fighter and bomber programs 
within the Office of the Assistant Secretary of the Air Force for 
Acquisition.
    General Bolton is nominated at a time of new emphasis on 
transformation. The recently completed Quadrennial Defense Review 
concluded that terrorism, chemical and biological weapons, cyberattacks 
and missile threats--so-called asymmetric threats--would transform the 
strategic landscape. The tragic events of September 11, sadly, 
confirmed that view.
    The Department of Defense needs a responsive and capable 
acquisition system to develop the capabilities required to counter 
these emerging threats. Secretary Rumsfeld has repeatedly identified 
the need to streamline acquisitions practices and policies to promote 
the more rapid development and acquisition of cutting-edge 
technological capabilities.
    The Department of the Army is no stranger to transformation with 
its vision of moving to a force that is more strategically responsive 
and dominant across the full spectrum of military operations. General 
Bolton's extensive background will surely assist the Army in its many 
challenges of balancing readiness and modernization against investment 
in future capabilities.
    General Bolton, I congratulate you on your nomination and look 
forward to working together to ensure we have the best possible 
equipment and forces for our Nation.
    Senator Levin.

    General Bolton. Thank you very much, Senator Warner.
    Senator Warner. I remember your service very well. You 
might share with the committee your wife's response at an 
appropriate time in the hearing.
    General Bolton. Yes, sir, I will. Thank you, and it is good 
seeing you again.
    Chairman Levin. Well, I guess you wanted to sample the 
Army----[Laughter.]
    General Bolton. Yes, sir.
    Chairman Levin.--after all those years in the Air Force, 
right? You want to figure out what is going on over there.
    At this time, I would like to include Senator Thurmond's 
complete statement in the record, as he is not able to be here 
today.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I join you in welcoming General Bolton as we consider 
his nomination to be the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology. I am pleased that we are 
considering an individual with his superb qualifications at the time 
the Army is transforming its forces to meet the challenges of this 
century.
    General Bolton, congratulations on your nomination. Your biography 
reflects a career that spans a period of great turmoil in our military. 
This background will serve you well as you take on the challenges 
facing our Army as it transforms from a force to fight on the plains of 
Europe to the force that can fight all spectrums of conflict. Your 
extensive experience as a program manager is especially noteworthy. It 
makes you uniquely qualified for the position and will allow you to 
quickly take charge of the Army's acquisition program. I support your 
nomination and wish you success.
    Thank you, Mr. Chairman.

    Chairman Levin. The committee has received the required 
paperwork on General Bolton, and will be reviewing that 
paperwork to make sure it is in accordance with the committee's 
requirements. There are a number of standard questions that we 
ask every nominee who comes before the committee. General 
Bolton, in your response to advance policy questions you agreed 
to appear as a witness before congressional committees when 
called, and to ensure that briefings, testimony, and other 
communications are provided to Congress. You have already made 
those commitments, and I will now ask you a series of 
questions.
    Have you adhered to applicable laws and regulations 
governing conflict of interest?
    General Bolton. Yes, Mr. Chairman, I have.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Bolton. No, Mr. Chairman, I have not.
    Chairman Levin. Will you ensure that the Department 
complies with deadlines that are established for requested 
communications, including prepared testimony and questions for 
the record in hearings?
    General Bolton. Yes, Mr. Chairman, I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Bolton. Yes, Mr. Chairman.
    Chairman Levin. Finally, will those witnesses be protected 
from reprisal for their testimony?
    General Bolton. Yes, Mr. Chairman.
    Chairman Levin. General Bolton, do you have any opening 
remarks that you would like to make at this point?

STATEMENT OF MAJ. GEN. CLAUDE M. BOLTON, JR., USAF, NOMINEE TO 
BE ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION, LOGISTICS, 
                         AND TECHNOLOGY

    General Bolton. Mr. Chairman, I do. I have some prepared 
remarks that I would like to read and then offer them for the 
record.
    Chairman Levin, Senator Warner, members of the Armed 
Services Committee, I am deeply honored and privileged to 
appear before this committee. I am also extremely grateful to 
the President and to the Secretary of Defense for the 
confidence and trust they have shown in me by nominating me to 
serve in this important position. If confirmed, I am fortunate 
to have had other valuable experiences in the Air Force that 
will allow me to bring a thorough knowledge of the Department 
of Defense and an understanding of best business practices to 
the very important responsibilities of the office for which I 
have been nominated.
    During the confirmation hearings, both Secretary Rumsfeld 
and Secretary White described the President's national security 
goals and key objectives of the Department of Defense and the 
Army. I am fully committed to these goals and objectives. If 
confirmed, I will work hard to support Secretary White's key 
goals to invest in people, to assure readiness, to transform 
the Army, and to adopt sound business practices. If I am 
confirmed, I will do all that I can to keep our Army the most 
effective fighting force in the world, and to ensure it is 
prepared to meet our important responsibilities for the 
security of this Nation in the new century.
    I intend to work closely with the Department of Defense 
leadership and Congress, including all members of this 
committee, as we work together to meet the great challenges 
facing the Army in balancing today's readiness and tomorrow's 
modernization requirements within allowable resources.
    Mr. Chairman, I want to thank you for the opportunity to 
testify, and for the committee's consideration of my 
nomination. Let me close by saying once again how honored I am 
to have been nominated by President Bush for this position. If 
confirmed, I pledge to do my utmost to fulfill the trust and 
confidence placed in me by the President, the Secretary of 
Defense, the Secretary of the Army, and the men and women of 
our Army.
    Thank you, Mr. Chairman. I am ready for your questions.
    [The prepared statement of Major General Bolton follows:]
      Prepared Statement by Maj. Gen. Claude M. Bolton, Jr., USAF
    Chairman Levin, Senator Warner, members of the Armed Services 
Committee, I am deeply honored and privileged to appear before this 
committee. I am also extremely grateful to the President and Secretary 
of Defense for the confidence and trust they have shown in me by 
nominating me to serve in this important position.
    If confirmed, I am fortunate to have had other valuable experiences 
in the Air Force that will allow me to bring a thorough knowledge of 
the Department of Defense and an understanding of best business 
practices to the very important responsibilities of the office for 
which I have been nominated.
    During their confirmation hearings, both Secretary Rumsfeld and 
Secretary White described the President's national security goals and 
the key objectives of the Department of Defense, and the Army. I am 
fully committed to these goals and objectives.
    If confirmed, I will work hard to support Secretary White's key 
goals: to invest in people, to assure readiness, to transform the Army, 
and to adopt sound business practices. If I am confirmed, I will do all 
that I can to keep our Army the most effective fighting force in the 
world, and to ensure it is prepared to meet our important 
responsibilities for the security of this Nation in the new century.
    I intend to work closely with the Department of Defense leadership, 
and Congress including all the members of this committee, as we work 
together to meet the great challenges facing the Army in balancing 
today's readiness and tomorrow's modernization requirements within 
available resources.
    Mr. Chairman, I thank you for the opportunity to testify today and 
for the committee's consideration of my nomination. Let me close by 
saying once again how honored I am to have been nominated by President 
Bush for this position. If confirmed, I pledge to do my utmost to 
fulfill the trust and confidence placed in me by the President, the 
Secretary of Defense, the Secretary of the Army, and the men and women 
of our Army.

    Chairman Levin. Thank you, General Bolton. We will start 
with a 6-minute round. General Bolton, you are still on active 
duty in the Air Force. I understand that, if confirmed, you 
will resign from the Air Force before the formal appointment is 
signed by the President for this position, is that correct?
    General Bolton. Mr. Chairman, that is correct.
    Chairman Levin. You spent your entire career in the Air 
Force, and now you are looking to be an important part of the 
Army. Can you tell us how you plan on doing that, what 
challenges you think that raises which may be novel or unique, 
given your Air Force experience, or whether that experience may 
help you in some ways?
    General Bolton. Mr. Chairman, I think the experience that I 
have gained over the past 25 years in this endeavor is very 
transportable to the Army. The time that I spent as a test 
pilot, as a program manager on three major programs for the Air 
Force, as an inspector general, as an educator, and as a 
program executive, give me the background and experience in the 
various processes, the tools that are available to manage 
weapons system programs, as well as to look after the 
sustainment of those weapons systems and, of course, the 
science and technologies that go into them.
    In addition, the one thing I have had, I guess I have been 
fortunate throughout my career, is good health--a lot of 
energy, zest, and a sense of purpose, and I bring that as well 
to this important position. The bottom line has always been for 
me, and now, if I am confirmed in the Army, to make sure that 
our fighting force, in this case the Army, remains the most 
capable, the most powerful, and the most respected Army that we 
have ever seen. I look forward to that, sir, if confirmed.
    Chairman Levin. Thank you.
    General Bolton, the Army's transformation effort involves 
modernizing the existing legacy force to maintain current 
operational readiness, fielding an interim force capability, 
and conducting a robust research and development effort that is 
needed to create a lighter and more mobile objective force by 
the year 2012. Could you tell us what, in your opinion, are the 
highest priority modernization programs that the Army has?
    General Bolton. As I understand it, under the banner and 
the initiative of transformation of the Army there are some key 
programs and priorities, not the least of which is the 
cornerstone of the major combat systems that will be required 
in order to make the Army lighter, faster, at least as lethal, 
if not more so.
    From a technology standpoint, I see that a logistics system 
will have to be more agile and perhaps get away from what we 
have done in all the services, and that is to have redundancy 
en masse and get into mobility and situation awareness. I 
believe, from what I have been told, the Army is moving in that 
direction. It is making strides, (1) to get on with the interim 
as well as the objective force, and (2) working very hard on 
its key initiative, its key programs associated with the major 
combat systems. I think those things are important if you are 
going to transform the Army.
    Chairman Levin. Based on your long experience in the Air 
Force, particularly in the acquisition part of the Air Force, 
do you have any specific recommendations on how the Army can 
streamline the acquisition process?
    General Bolton. From what I have been told, and obviously 
if I am confirmed I would have to look at this in greater 
detail, I think the Army is responding first of all to how it 
is doing its requirements process and streamlining that, and 
reducing, or increasing the stability in the requirements 
process.
    I think that is key for any development in any system 
program. If we do not get the requirement right, we cannot 
write it down. If we do not do it in a disciplined fashion then 
I do not care how good a program is, you are going to run into 
some problems, and I think the Army is taking strides to do 
that. In addition, I understand that if I am confirmed, the 
office I would be going into has also been reorganized with an 
aim toward streamlining and putting into essentially one 
office, or one person, the entire life cycle of a weapons 
system if you will, from the cradle to the grave. I think that 
is a step in the right direction, and then aligning the various 
authorities and responsibilities. I think those are all 
important, to get the requirement right, to get the 
organization right.
    There are some other things that I believe the Army is 
doing that we may want to touch on later, that revolve around 
the people and how they are trained, educated, recruited and 
retained, and then the industrial base. But I believe the Army 
is moving in the right direction and, if confirmed, those are 
the things that I will be looking at to make sure they are 
streamlined and supportive of the Army of the future.
    Chairman Levin. Do you have any specific recommendations, 
General, on how the Air Force and the Army can cooperate more 
closely in the development of combat capabilities?
    General Bolton. Yes, sir, and I think we have seen some 
examples of that. Plugger, for example, which is a lightweight 
GPS produced by the Army, bought by the Air Force some years 
ago, took what was then acquisition reform initiatives, with 
the help of Congress and this committee, given some relief. We 
were able to take a unit that basically was well over $3,000 
per unit and get it down to $400 or $500, $800 the initial lot.
    I think there are plenty of opportunities, if not for the 
weapon systems per se, certainly for the technologies. When we 
look at how we get systems, how we work together, how we 
communicate together, how we use information technology, I 
think all of those things are transferable between not only the 
Air Force and the Army, but all the services, and in fact a 
good share of industry as well. If confirmed, those are the 
types of things I will be looking for. I do not believe--I know 
it has been my experience, I do not have all the answers. My 
service does not have all the answers. You go where you have to 
to get the right answers to do the right thing at the right 
time.
    Chairman Levin. Senator Warner.
    Senator Warner. Mr. Chairman, I will defer to my colleagues 
now and do a wrap-up later.
    Chairman Levin. Senator Bunning is next on an early bird 
basis. I should have announced we are going to go by the early 
bird rule, as always.
    Senator Bunning. Thank you. Thank you, Mr. Chairman. I 
welcome you, General.
    General Bolton. Thank you, Senator.
    Senator Bunning. I used to have a very good friend that was 
the commanding officer at Wright-Pat, General Earl O'Laughlin. 
I do not know if you know him.
    General Bolton. Yes, sir, I know him.
    Senator Bunning. He was the logistics commander for a long 
time.
    General Bolton. Yes, sir.
    Senator Bunning. He is a good golfer. [Laughter.]
    He took money away from me on that course at Wright-Pat. 
That is how I know that.
    General Bolton. He could probably take a lot of money from 
me as well, Senator.
    Senator Bunning. We are glad that you have decided to come 
back again to serve your country with the Army.
    General Bolton. Yes, sir.
    Senator Bunning. I cannot believe that an Air Force man 
would come back with the Army, but I will do it.
    Let me ask you just a couple of questions from some of your 
testimony that you have written. You have had considerable 
acquisition experience. Based on that experience, are there any 
problems that you saw in the acquisition process that are not 
being addressed by the Department's restructuring plan and, if 
so, what are they, and how would you address them?
    General Bolton. It may be a little premature for me, 
particularly in terms of why we are here, for my confirmation, 
because I just do not have enough details or information with 
regard to what the Army is doing. But what I have seen from my 
own service and seen from other services from afar, I think we 
are moving in the right direction.
    This is a period of change. Secretary White has indicated 
that. All the services are in a transformation, and I think 
doing as well as we can, to transform ourselves into a fighting 
force that can meet not only the interim threats that we have, 
current and interim, but also future threats, and stay within 
the resources constraints that we have.
    Senator Bunning. In your responses to the advance questions 
you were given, you highlighted the importance of integrating 
the programs earlier into the development process. This will 
streamline the acquisition system without reducing the testing 
necessary to ensure a full, capable system. What reorganization 
do you believe will be needed to accomplish that fact?
    General Bolton. Senator, I do not believe reorganization is 
needed. There may be from time to time emphasis needed to 
ensure that testing starts, literally from day one in the 
requirements process, through the development, and certainly 
into what we traditionally think of as tests, and development 
testing, and initial operational testing and evaluation and 
follow-on. But I believe it ought to be an integral process, 
done from the beginning of the program. In addition, we must 
remember what test is all about. Test, in and of itself, I 
think, is not the wisest thing to do, and it is a waste of time 
and money. But tests used to reduce risk on a program, and used 
as a tool, that is what test is all about, and I think you can 
well integrate that throughout a program life cycle.
    Senator Bunning. In your responses to the advance questions 
you mentioned that the infrastructure for the DOD test range 
and the Army's instrumentation needs to be upgraded and 
replaced, to keep in place with advancements of the systems 
being tested. What is the Army's plan to support that 
instrumentation, and do you believe it is adequate to meet the 
requirements for testing of the future combat systems the Army 
is currently developing?
    General Bolton. Senator, I have not been privy to, nor do I 
understand what support the Army will give in the future in its 
budgets. I simply have not seen that.
    My indication from some of the initial briefings are that 
the infrastructure could stand recapitalization, as I think is 
true for all services--it certainly is true for mine. If 
confirmed I believe that is well within my job description, to 
understand what tests and structure we have, and to make sure 
that we have appropriate infrastructures to do the testing of 
the future. That testing in the future will revolve more and 
more around systems and systems within and between services, 
and perhaps even with other countries, and certainly have heavy 
emphasis on information and information technology, and how 
best to go about doing those tests. So if confirmed I look 
forward to seeing what our baseline is, and then advising the 
leadership of the Army where we need to go in the future with 
resources.
    Senator Bunning. Last question. Are any of these testing 
ranges suffering reduced capability as a result of encroachment 
either from the civilian population or from the environmental 
restrictions and, if so, how do you plan to deal with it?
    General Bolton. To my knowledge, sir, that is true for all 
ranges.
    Senator Bunning. All ranges?
    General Bolton. All ranges that I am aware of. I do not 
know the specific ones for the Army, but it has been my 
observation in looking at this over the years that it has been 
an issue. I do not think there is a simple solution across the 
board, one solution for all the issues that I am sure are 
there. But if confirmed I intend to look at each one of those 
to see how best we can use the ranges and to use other ranges, 
i.e., other services, and other agencies.
    Senator Bunning. Fort Knox has that specific problem. That 
is why I am asking.
    General Bolton. Yes, sir, I have heard that. I simply do 
not know the details on that, but my intention is, if 
confirmed, to work with you, with other members, and certainly 
with the Army leadership to see what we can do to arrive at 
solutions that are in the best interests of the Army, the best 
interests of the American citizens--we live around those 
ranges--and for the taxpayers at large.
    Senator Bunning. Thank you.
    Mr. Chairman, I have an opening statement I would like to 
put in the record also. Thank you.
    [The prepared statement of Senator Bunning follows:]
               Prepared Statement by Senator Jim Bunning
    Thank you Mr. Chairman. General Bolton, I would like to welcome you 
and your family and thank you for coming before us today. We all 
appreciate your continued willingness to serve your country, 
particularly during this time of great crisis.
    The job you have before you would be difficult during normal times. 
As we all know, these are not normal times. I look forward to working 
with you to ensure that our Army has the best equipment possible.

    Senator Bunning. Thank you very much, General.
    General Bolton. You are welcome.
    Chairman Levin. Senator Landrieu has yielded to Senator 
Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. First of all, I am 
looking forward to our visit that is coming up. We have not had 
a chance to do that yet, but I know you by reputation, and I am 
very excited about the new position you are going to be 
assuming. I kind of like the idea of getting someone from a 
different service. This administration, you will be the third 
one they have done this way.
    General Bolton. Yes, sir.
    Senator Inhofe. I think you offer a different perspective. 
Many things are the same. General, we have undergone a very 
serious problem for the last 10 years, underfunding in every 
area, RPM accounts, modernization, and it has taken its toll in 
terms of retention, and I see us turning that corner now. You 
have suffered through the last 10 years, and now you are going 
to be in on the rebuilding, very similar to what we found 
ourselves in 20 years ago.
    We had a hearing the other day and I had a man that was up 
here from Oklahoma. His name is Charles Sudlett. He had the 
same kind of parallel career in the Air Force that you had, and 
something occurred to me. I remember I singled him out--he was 
in the audience, and I said--he had flown about the same number 
of missions in Vietnam that you had in the same kind of 
vehicles, and I said, all during the time that you were in at 
that time, people questioned, perhaps, the war, the motivation, 
but in terms of equipment, we had the best of everything, 
whether it was the F-100s, the F-105s, the F-4s, and the Navy 
had the A-4s and the A-6s, and they were better than anything 
that the other side had, and he agreed with that.
    Today, that is not true. We are dealing now with 
equipment--our best air-to-air is the F-15, our best air-to-
ground is the F-16, and yet the SU-27s in terms of detectable 
range and other areas are superior in some ways, and the SU-
30s. Now they are coming in with the advanced equipment.
    You are going to find, I am sure you agree with that, that 
we have gotten to a point where we do not have the best of 
everything today in the Air Force, and that same thing is true 
in the Army. I remember back when I was in the Army, many, many 
years ago, we did have the best artillery. We had the best that 
there was, and that is something that has kind of been our 
hallmark ever since World War II.
    Well, it is not true today, and if you take one vehicle 
that we have in the Army that you are going to be dealing 
directly with probably as much as anything else, it is going to 
be the Crusader. Right now, our Paladin is inferior in terms of 
rapid fire and range, to artillery pieces that are made in four 
different countries. So no matter who the adversary is, the 
likelihood is that they are going to have something better than 
we have in terms of an artillery piece.
    So the first question I would like to ask you is, do you 
agree with the Secretary of the Army, General Shinseki, and all 
of the rest of them that when we have asked this question as to 
the necessity of getting into the Paladin as quickly as 
possible? I am sorry, into the Crusader, and upgrading that 
capability?
    General Bolton. I certainly would defer to their judgment 
on that, since they have much more than I currently do. I am 
not experienced on that program. I have not been thoroughly 
briefed on that program.
    To your comments on capability, I certainly agree that we 
need to increase our capabilities across the board in all the 
services.
    Senator Inhofe. The point I want to make, General, is we 
have always had the best of everything.
    General Bolton. Yes, sir.
    Senator Inhofe. We have had our kids over there and we have 
tried to give them the best training and the best equipment to 
use, and as of this moment today, they do not have the best of 
everything, so as you get into the ground end of our military, 
I hope you will do that, and actually start with the Crusader, 
because I think each nominee that we have asked who has been 
before this committee for the last 3 or 4 years has said, if 
you could single out one crown jewel that we really need to 
advance on, it would be--or where we are the furthest behind, 
it would be in our artillery capability.
    I make it a point to get around to a lot of the 
installations of all the military. I was at Fort Lewis, 
Washington, during the August recess, and they showed me the 
interim armored vehicle that we are talking about having the 
side by-side test in with the existing M-113. Now, I know you 
have not had time to get into some of the details of this, but 
it is my understanding that we are going to do two brigades, 
but before we go to the third brigade, we are going to have 
this side-by-side competition. It is my understanding that will 
cost about $28 million.
    Well, I can save you $28 million, General, because I have 
already done the competition. I have been in both vehicles, and 
it is my understanding that as of yesterday there seems to be a 
change. People are recognizing the fact that the IAV is going 
to be something that is far superior, something we need to get 
into and not delay, and not spend a lot of money making that 
decision.
    I would like to ask you first of all if you have any 
thoughts about that, getting into that modernization, and 
second, if not, would you go to Fort Lewis and do what I did, 
and take a ride in both of them?
    General Bolton. Well, Senator, let me see if I cannot do 
both. [Laughter.]
    Senator Inhofe. All right.
    General Bolton. First of all, I do agree with the notion of 
modernization, whether it is the IAV, or the other programs, 
weapons systems that are under consideration and development by 
the Army. If confirmed, those are cornerstones, jewels, if you 
like, that I will spend a good deal of time understanding the 
capability we are looking for and how best to get it, and how 
quickly we can get it, and so I look forward to getting into 
the details, working with the leadership and working with you 
and other members here in this committee and with Congress to 
get the capability of the Army needs and wants very quickly.
    I, too, was at Fort Lewis. My wife and I were on vacation. 
We left on 10 September, and obviously when the attacks 
occurred on the 11th we were not able to get back. We were just 
a few miles from Fort Lewis, and we had an opportunity to go 
out to that post and view what was going on there. There were a 
lot stories, as you might imagine, on the interim force and 
what was going on in the prototype phase at Fort Lewis, so I am 
very anxious to get back and understand what is going on there. 
If confirmed, I will be up there.
    Senator Inhofe. I appreciate that.
    Mr. Chairman, I know my time has expired. I would like to 
ask him one question just so he can answer it for the record, 
because it is going to be a rather lengthy answer, and it has 
to do with our depot capability. I know that you are more 
familiar, as am I, with the depots and air logistics, and the 
depots in the Air Force, but some of the problems are the same 
in the Army depots that we have.
    They are a very viable part of our fighting force in terms 
of the public depots function and mission, but they are very 
antiquated, poorly designed, poorly equipped, and I would like 
to have you for the record--not today, but for the record give 
me a pretty in-depth answer as to what you believe the future 
of our public depots are, and then, if it is to continue as we 
have in the past, what plans we have to bring them up to date 
so that they can do the job that they were--many of them were 
operating with the same technologies and the same equipment 
they were using back in World War II, so if you could do that 
for the record I would appreciate it, and I look forward to 
serving with you in this capacity.
    General Bolton. If confirmed, I will be more than happy to 
take that for the record and provide you that answer.
    [The information follows:]
                         Future of Army Depots
    Our depots are a vital link in our ability to support the Army in 
transition as well as the future Objective Force. We see our depots not 
only supporting the long term strategic readiness of our weapons 
systems, but becoming a full time partner supporting the near term 
readiness of the transforming Army and the Objective Force. The Army 
will maintain an organic depot base with multi-functional and multi-
capable facilities and personnel trained and equipped to work on the 
systems that will be in the force between now and beyond 2025. This 
multi-functional approach will provide us with a built-in surge 
capability that will be responsive to the needs of our more capable 
force.

    Senator Inhofe. Thank you.
    General Bolton. I look forward to it as well, sir. Thank 
you.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. Mr. Chairman, I 
would like to request that my full opening statement be 
inserted in the record.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    Thank you, Mr. Chairman, for conducting this hearing today. General 
Bolton, it is nice to see you here today, and you are certainly a well 
qualified nominee. The Armed Services Committee must confirm scores of 
nominations to serve key posts within the Department of Defense, but 
few are as vital as the position before us at this time--the Assistant 
Secretary of the Army for Acquisition, Logistics, and Technology 
(ASA(ALT)).
    As the chair of the Emerging Threats and Capabilities Subcommittee, 
I am most interested in seeing that those in charge of acquisition, 
logistics, and technology are highly qualified and competent. After 
all, the primary aim of the Assistant Secretary is to ensure that the 
Army best uses ever-changing science and technology to obtain the 
necessary capabilities for warfighting and protection of our Nation's 
security. As you stated in your responses to the committee's questions, 
the ASA(ALT)'s ``primary duties are to ensure the Army's soldiers are 
provided with the most capable and sustainable equipment and to wisely 
shepherd all available resources to provide that capability in the most 
cost effective manner.'' Therefore, our men and women in the Army are 
truly dependent on the Assistant Secretary for their safety and to have 
a competitive advantage against any possible enemy they may face on the 
battlefield.
    I am encouraged to see that you are an advocate for the Army's 
transformation. I appreciate your statement, ``The Army must leverage 
new science and technology programs and initiatives to capitalize on 
emerging trends and breakthroughs. The Army must ensure it transforms 
into a force that will have the ability to respond effectively not only 
against today's terrorism and force protection threats, but also 
tomorrow's unknown threats.'' For too long those in the Department of 
Defense have beheld antiquated notions of management and warfighting, 
but the time has come to make a paradigm shift. I have lauded General 
Shinseki for his vision and commitment to transforming the Army to make 
it a leaner, swifter, and more lethal force capable of victory against 
the unknown enemies we will face in the 21st century. As this committee 
deliberated the Defense Authorization Bill for Fiscal Year 2002, the 
Secretary of Defense argued for a delay in transforming the Department 
of Defense in fiscal year 2002. We must avoid further delays and make 
necessary changes to improve our Nation's defenses.
    Not only do I see a need for the ASA(ALT) to be an advocate for 
transformation, but the ASA(ALT) must champion each day the 
transformation push for tangible and cognizable changes in the way the 
Army operates. The ASA(ALT) must show a dedication to science and 
technology. With such a devotion, the ASA(ALT) must see that this 
science and technology are truly catalysts for the research, 
development, test, and evaluation process and the procurement process. 
Pragmatism must win out so that worthwhile ideas receive the funding to 
become the next generation of weapons and equipment, while white 
elephants are sent out to pasture. Procurement must be streamlined so 
that those new ideas that are successful can get into the field faster. 
It takes entirely too long for new equipment to reach the field. Too 
often, new concepts and innovations are scuttled in favor of the status 
quo. Where the status quo imposes a danger to our soldiers or our way 
of life, we must shake the trees at the Pentagon to eliminate out of 
date and out of touch operating procedures.
    In conclusion, I concur in your vision that the Army's 
transformation and move toward modernization ``will enable the Army to 
field a force that is more responsive, deployable, agile, versatile, 
lethal, survivable, and sustainable.'' I hope those in positions higher 
than yours share your thoughts. Should you be confirmed, I also hope 
you understand and grasp both the enormity of the task ahead and the 
opportunity you have to leave a lasting and meaningful impression on 
the Army for years to come.

    Senator Landrieu. General Bolton, congratulations on your 
nomination.
    General Bolton. Thank you, ma'am.
    Senator Landrieu. I look forward to working with you in a 
variety of capacities, but particularly in regards to my 
chairmanship of the Emerging Threats and Capabilities 
Subcommittee. In our subcommittee we are very focused and very 
interested in all aspects of acquisition for research and 
development, particularly in protecting us in these new 
asymmetrical threats.
    Let me say that I was particularly impressed with your 
opening statement. You said the Army must leverage new science 
and technology programs and initiatives to capitalize on 
emerging trends and breakthroughs. You go on to say, the Army 
must ensure it transforms into a force that will have the 
capability to respond effectively not only against today's 
terrorism and force protection threats, but also tomorrow's 
unknown threats, and I appreciate that emphasis, and want to 
work with you.
    But one question I have regarding that is the conflicting 
information I am receiving about a peacekeeping vehicle that 
has performed extraordinarily well, and that is our armored 
security vehicle (ASV). When General Shinseki testified before 
our committee not too long ago, I asked him a question in 
regards to this particular vehicle and its continued 
production. General Shinseki replied that the Army does not 
have plans to terminate the ASV program at the end of 2002. The 
current plan is to continue to field the armored security 
vehicle to Military Police (MP) units.
    Then, however, we read in Jane's Defense Weekly in 
November, ``the Army has canceled the ASV vehicle used by 
military police.''
    Now, this is my question. Can I count on the statement that 
General Shinseki made before this committee? Can I count on 
your support and, if not, what are you going to recommend as a 
proper substitute for the only vehicle in the Army that can 
protect, to my knowledge, our forces in a hostile peacekeeping 
situation?
    General Bolton. Senator, I wish I could give you an answer 
this morning. I simply do not have the information, other than 
what you know, about the cancellation of that program. If 
confirmed, and if you still desire, I certainly will take that 
for the record and provide you an answer. At the moment, I just 
do not know. I am sorry.
    [The information follows:]

    Yes, you can count on the support of General Shinseki and myself. 
Regarding the status of ASV, the Army is currently procuring the ASV 
under a 5-year multiyear contract with Textron Marine and Land Systems. 
The fiscal year 2002 President's Budget includes funding for the fourth 
year of the contract. The Army's intent is to support the ASV through 
to the conclusion of the multiyear at the end of fiscal year 2003.

    Senator Landrieu. Well, I would like to call to the 
chairman's attention and to our ranking member that to my 
knowledge, the ASV is the only vehicle fit for the MPs. That is 
why this is a very serious issue, not simply because its 
production line is in Louisiana. My staff has researched this 
pretty thoroughly, and in the Army's whole procurement line 
there does not seem to be a comparable vehicle. I mean, HMMWVs 
are, of course, something that our Army uses, but they have a 
relatively open driver's compartment. Our forces need the 
proper protection in a peacekeeping environment.
    This particular vehicle not only has four-wheel drive 
capability, a 50 caliber machine gun, and a 40mm grenade 
launcher, but it can withstand the direct impact of a land 
mine. If the wheels are shot out by a rifle, it has new 
technology that continues to inflate the tire and keep our 
forces in the fight. I would argue that with these new and 
emerging threats, the back end of these conflicts are going to 
be as important as the front end. We are going to need a 
vehicle, either this one or something very similar, to complete 
our mission.
    So I bring that to your attention, and I am going to be 
working very closely with you. If you can produce something 
else that is better, then I would be the first to say, well, 
let us save money where we can, but to take out something that 
seems so essential, to try to find other essential things just 
is not the way we should be going.
    So I will leave it at that, but I want to work closely with 
you on that.
    General Bolton. Yes, Senator.
    Senator Landrieu. Second, since your position will have 
oversight over Army science and technology (S&T) programs, do 
you feel the Army is currently investing enough in research and 
development (R&D)? If not, what are some of your specific 
plans, and would they include a goal similar to the Secretary 
of Defense's goal of 3 percent for the DOD budget overall?
    General Bolton. The goal of 3 percent I think is 
appropriate. Certainly, if I am confirmed, that is what I would 
recommend to the leadership of the Army. I am led to believe, 
and looked at some of the figures over the last few years, that 
the request that the Army has made has been increasing in this 
area. It is certainly not close to the 3 percent we would like 
to have, but if confirmed, that is what I believe should be 
done, and that is what I will support.
    Senator Landrieu. Finally, the Army plays an important role 
in performing vital medical, chemical, and biological research 
for our country. It has been most evident, of course, with our 
recent anthrax attack--Fort Detrick in Maryland has been a real 
leader working with us on this attack. How will you work to 
ensure the Army's expertise is available to our first 
responders, the Center for Disease Control, and the Office of 
Homeland Security? Do you have any specific ideas on the 
subject as you have been thinking about your confirmation 
process?
    General Bolton. Well, not only for the subject that you 
have just indicated, but for our entire workforce. As you may 
know, over the next 2 to 5 years, 50 percent of our civilian 
workforce is eligible to retire, including those in the area 
that you just addressed. If confirmed, that is one of my 
priority areas, to look at how we go about recruiting, 
retaining, training, motivating, and challenging that 
workforce.
    It is not just true for the Army. It is true across the 
Department of Defense, and I think that is very important. I 
will work that very, very hard, and I look forward to working 
with you and other members here to see what we can do about 
that.
    Senator Landrieu. Did you just testify that 50 percent of 
that workforce is near retirement?
    General Bolton. Yes, ma'am, that is true.
    Senator Landrieu. Within what, 5 years?
    General Bolton. 2 to 5 years.
    Senator Landrieu. 2 to 5 years, OK.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Landrieu.
    Senator Warner.
    Senator Warner. Mr. Chairman, I am going to put my 
questions into the record. Also, I am going to put into the 
record excerpts from the Congressional Record when the Senate 
considered the nomination of General Bolton. The committee 
examined the allegations with regard to the cruise missile 
program over which you were the manager at one time. That 
matter was thoroughly explored by the committee. Comments by 
Chairman Nunn very clearly indicate that it was the committee's 
finding that there was no culpability on your part whatsoever.
    [The information referred to follows:]

                       (Senate--October 8, 1994)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    General Bolton. Thank you, Senator.
    Senator Warner. These records sometimes are examined by 
others and in the years to come someone might make reference to 
it. This is a matter which you and I discussed in our meeting 
together, and I think the record should reflect the findings of 
the committee on this issue.
    General Bolton. Thank you very much.
    Senator Warner. I just wanted to share a few thoughts with 
you philosophically. Senator Levin and I had the real privilege 
of visiting with our troops during the course of Thanksgiving 
in the AOR about Afghanistan. We are coming up on December 7 
soon, and I am old enough to remember a good deal of that 
period. There is a story I think may be partially true that 
within a week after Pearl Harbor the Army Chief of Staff 
ordered 20,000 horses and 10,000 mules to gear up for the next 
conflict. There may be some truth in it, because the cavalry 
really dominated the Army in those days in terms of promotions 
and one thing and another.
    As we visited over there, I looked at these special 
operations teams going in and we met with them. You could not 
tell, of course, from the uniforms what their mission was or 
what their specialties might be. They were dressed in a certain 
appropriate way for the operations they were about to perform. 
I cannot talk about it in open session, but what I observed was 
all the services coming together, one officer and a dozen 
sergeants. They just have performed magnificently. I think some 
in the Army still may linger on the dream of every West Point 
graduate and others, that some day they will be a corps 
commander, and will have a command post. They envision a battle 
with two divisions up and one division in reserve, and all of 
that history.
    I do not think this Nation and the world is going to 
revisit those chapters of military history, but our future 
configuration of the Armed Forces have to move in the direction 
of the extraordinary heroism and ingenuity and technology that 
is being employed at this very minute in that AOR.
    Now, I would hope, since you are going to, I am certain, be 
confirmed by the Senate, that you will push the technology that 
our distinguished chairwoman of the Emerging Threats and 
Capabilities Subcommittee just alluded to, and grapple with 
that mentality which still lingers in the Department of the 
Army, and try and move them more and more, and help those in 
the Army.
    Try and move them into more and more innovation and away 
from the concept of having so many divisions. They have to move 
toward the direction of where these young Army officers and 
sergeants are performing brilliantly in this conflict today.
    General Bolton. Yes, sir.
    Senator Warner. They have to rely less and less on the 
concept of two up and one back in every fight to come, and the 
ability to coordinate with the air and the sea elements, all 
pulling together in this particular conflict.
    General Bolton. Absolutely.
    Senator Warner. You are a man of vision, and this cross-
pollenization of the Secretary of Defense and others that are 
putting the Army with the Navy and the Navy with the Army, I 
thought was somewhat unusual in the beginning, but I am 
beginning to think it is a darned good idea, so go for it.
    General Bolton. Yes, sir, I will. Thank you.
    Senator Warner. Just think, a fighter pilot amidst all of 
those men who spent their lives, most of them, running around 
knee deep in the mud or snow somewhere. Good luck to you.
    General Bolton. Thank you, sir.
    Senator Warner. Thank you, and thank you for the support 
that your family is giving you as you undertake another great 
challenging chapter in your distinguished career.
    General Bolton. Thank you, Senator Warner, I appreciate 
that.
    Senator Warner. The questions that I put in the record, 
just go ahead and drop me the answers as soon as you can.
    Thank you, Mr. Chairman.
    General Bolton. Thank you.
    Chairman Levin. Senator Warner, when you started off 
recounting that story about horses and mules, I thought you 
were going to lead to the point we could have used some of 
those horses in Afghanistan. [Laughter.]
    Senator Warner. You are absolutely right.
    Chairman Levin. That is where I thought you were going with 
that, you were going to ask whether he had any experience in 
the acquisition of horses.
    General Bolton. No, sir, not in the Air Force.
    Chairman Levin. That is part of the ingenuity that Senator 
Warner was talking about, though, that those special forces, 
some of them learning how to ride, literally, on the job, 
learning how to ride.
    Senator Warner. We have to share a story--I have forgotten 
whether it was you or Judy, but someone asked the question: how 
many of you have had any experience riding? They all had taken 
a crash course, and one sergeant stood up and he really had a 
scar laid right down across his forehead. He said, yeah, this 
is testimony that I know how to ride now, but I did not know 
how a month or so ago.
    Chairman Levin. Calling in air strikes from horseback is 
not in any manual I know about at any rate.
    Senator Ben Nelson is next.
    Senator Ben Nelson. Well, thank you, Mr. Chairman. I always 
enjoy welcoming nominees to the Armed Services Committee, but 
particularly when they are graduates from the University of 
Nebraska.
    General Bolton. Yes, sir.
    Senator Ben Nelson. I understand your wife, Linda, is from 
Alma, which is near my hometown on the Republican River in 
Harlan County. I would like to extend my welcome to both of you 
and your family for being here.
    General Bolton. Thank you, Senator.
    Senator Ben Nelson. As a distinguished graduate of the Air 
Force ROTC program at the University of Nebraska, I know that 
you received an excellent education and a good start in the Air 
Force, and you have been able to take that good start and have 
a very strong career in the Air Force. As I was looking over 
your resume in anticipation of this hearing this morning, there 
was just one question that I have that I think you might be 
able to help us with, and that is in the area of science and 
engineering.
    As an electrical engineer, I think you not only have the 
experience that it takes in this field, but you may have some 
serious thoughts about what we can do to solve one of the 
problems. I notice that you mentioned that one of the 
challenges which the Army faces is, in your words, impending 
loss through retirement of a significant percentage of resident 
expertise and corporate knowledge in the science and 
engineering workforce, and the shortage of younger S&Es to whom 
this experience would normally be transferred through training 
and monitoring.
    I wonder if you can address this challenge, and also what 
impact, if any, this could have on the Army's goal of the 
transformation, especially of Future Combat Systems, as you 
take on your new duties.
    General Bolton. Well, Senator, if I could answer those 
maybe in reverse. First of all, the impact of not having these 
people. It has been my observation over the years that the 
reason the United States is a great country, the greatest 
democracy, the greatest economy, the greatest military, has 
absolutely nothing to do with what I call natural laws. It has 
everything to do with people, people who have vision, energies, 
abilities, capabilities, bringing those together to reach those 
visions. In our military, that has certainly been the case. The 
reason we are as good as we are is because of the people who 
had the ideas, who could write requirements, who could 
transform those into technology challenges, and then meet those 
challenges, put those into weapons systems, field those weapons 
systems, and sustain those weapons systems.
    Now we are going to lose those people. I am told--and this 
is not only true for the Army, it is true for the Air Force, 
and I presume it is true for the other services--in the 
civilian workforce we could lose as many as 50 percent between 
now and the year 2005 or 2006. I am told the Army has a number 
of programs. If confirmed, I am going to look at those 
programs, personnel and recruitment programs, to see how we go 
about enticing people to come in to replace those who are 
leaving, how to keep the workforce that we have, and how to 
shape that workforce.
    That is going to require a lot of energy on the part of the 
Army leadership, as well as working with members of Congress 
and certainly this committee to make that happen. But I see 
that as a short-term solution, short-term being 5, 6, maybe as 
long as 10 years.
    The longer-term is, how do you do the things that need to 
be done, but with fewer people? We do not know how to do that 
yet, but we are going to have to figure that out 10 or 15 years 
from now, because the pool we are drawing from is the same 
talented pool that industry is drawing from, and particularly 
the commercial sector. So they, too, are trying to figure out 
how to do it with fewer people. We need to do the same thing.
    But in the interim, I do not see how we can do that. We 
simply have to work through the personnel programs and make 
that work for us.
    Senator Ben Nelson. We have to be competitive, is what I 
hear you saying, and innovative as circumstances change.
    General Bolton. Yes, Senator.
    Senator Ben Nelson. I appreciate very much what your 
commitment will be to that endeavor, and I am very encouraged 
by someone of your caliber being nominated for this position. I 
look forward to your serving in the role. Thank you very much.
    General Bolton. Thank you.
    Chairman Levin. Senator Nelson, thank you.
    Senator Smith.
    Senator Smith. No questions, Mr. Chairman.
    Chairman Levin. Thank you, Senator Smith. I just have a few 
additional questions. Senator Inhofe made reference to the 
interim armored vehicle, the IAV. I have a couple of questions 
relative to what has been decided on that, which is to do a 
low-rate initial production (LRIP) of that vehicle, but about 
50 percent of all the vehicles to be built would be included in 
that low-rate initial production, which is not really low-rate.
    My question is, do you have any concerns about such a large 
initial production of the IAV? I also would ask relative to the 
testing of the IAV, the initial production will not be subject 
to the initial operational test and evaluation until after 
three of the interim brigade combat teams are fielded, and I am 
wondering if you see risks in that, and if so, how we could 
mitigate those risks.
    General Bolton. Senator, obviously I do not know all the 
details on that. There are risks involved. If confirmed, I 
intend to understand the full details of what the risks are and 
how well our risk management program is addressing mitigating 
those risks.
    There are always a number of reasons why we want to 
increase the quantities under LRIP. I am not familiar with the 
Army's rationale yet, so I cannot tell you whether or not that 
is a good rationale, but I can assure you that, if confirmed, 
we will look at the details. We will figure out whether or not 
we have the adequate testing, the information, the data to 
convince you and other members, as well as ourselves, whether 
or not it is a wise thing to do, whether this version of the 
acquisition strategy for that vehicle is the wise thing to do.
    Chairman Levin. When you become familiar with those issues 
which I have just identified, would you get us a report or a 
letter to this committee about that subject?
    General Bolton. Yes, Mr. Chairman, I will.
    Chairman Levin. After you are familiar with it. Even with a 
transformation effort, the Army is going to continue to require 
a heavy counterattack corps, including combat support vehicles 
such as the Grizzly, the obstacle breacher, the Hercules, the 
recovery vehicle, and the Wolverine heavy assault bridge. All 
those programs historically have been underfunded, subject to 
cancellations, and frequent changes that have undermined those 
programs. Will you take a good look, a hard look at each of 
those programs and report back to us on how you intend to 
address the problems that I have just identified, the funding 
permutations, cancellations, and restarts in those three 
programs?
    General Bolton. Mr. Chairman, if confirmed I will, indeed.
    Chairman Levin. OK, thank you.
    I think Senator Bunning is next. Senator Bunning.
    Senator Bunning. I have no more questions.
    Chairman Levin. Thank you.
    Senator Landrieu, any more questions? Senator Smith? 
Senator Nelson?
    Senator Ben Nelson. No more, thank you.
    Chairman Levin. OK. I think we are all set. Thank you again 
for your service. Congratulations on your appointment. Thanks 
to your family for their support, and we hope that we can get 
this to the floor very quickly.
    General Bolton. Mr. Chairman, thank you again, and to each 
and every one of you, the best of the season's greetings from 
the Bolton family.
    Chairman Levin. Thank you.
    General Bolton. Thank you, sir.
    Chairman Levin. I remind colleagues and staff, we are going 
immediately into executive session.
    [Whereupon, at 10:32 a.m., the committee adjourned.]

    [Prepared questions submitted to Maj. Gen. Claude M. 
Bolton, Jr., by Chairman Levin prior to the hearing with 
answers supplied follow:]

                                                 November 29, 2001.
Honorable Carl Levin, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: I respectfully forward for your consideration my 
responses to the advance policy questions put to me by the committee. I 
look forward to appearing before you when the committee considers my 
nomination to be Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology.
            Sincerely,
                                    Maj. Gen. Claude M. Bolton, Jr.
Copy furnished:
    Honorable John Warner,
    Ranking Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the special operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the Department of Defense 
Reorganization Act of 1986 and related special operations initiatives 
for defense reform.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. From what I have learned to date, these defense reforms 
have been implemented and have achieved the desired results. Having 
said that, I believe it is important, and consistent with the intent of 
the reform legislation, that the Army continues to assess and modify 
its operations and internal procedures to meet the challenges of a 
dynamic security environment.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of these reforms were 
strengthening civilian control; streamlining the operational chain of 
command, improving the efficiency in the use of defense resources, 
improving the military advice provided to the National Command 
Authorities, clarifying authority for combatant commanders, and 
enhancing the effectiveness of military operations.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. I fully support the congressional goals reflected in the 
Department of Defense Reorganization Act of 1986 and other related 
defense reform legislation.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the National strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I am not aware of any current proposals to amend Goldwater-
Nichols. It is too early for me to comment without additional 
evaluation and insight to address any proposals.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Acquisition, Logistics and 
Technology?
    Answer. The Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology's (ASA(ALT)) primary duties are to ensure the 
Army's soldiers are provided with the most capable and sustainable 
equipment and to wisely shepherd all available resources to provide 
that capability in the most cost effective manner. The ASA(ALT) serves, 
when delegated, as the Army Acquisition Executive, the Senior 
Procurement Executive, the Science Advisor to the Secretary, and as the 
senior research and development official for the Department of the 
Army. The ASA(ALT) also has the principal responsibility for all 
Department of the Army matters related to logistics. In these 
capacities, the ASA(ALT) advises the Secretary on all matters relating 
to acquisition and logistics management, and executes the acquisition 
functions and the acquisition management system of the Department of 
the Army. He appoints, manages, and evaluates program executive 
officers and direct-reporting program managers and managing the Army 
Acquisition Corps and the Army Acquisition Workforce. The ASA(ALT) 
executes the DA procurement and contracting functions, including 
exercising the authorities of the agency head for contracting, 
procurement, and acquisition matters pursuant to laws and regulations, 
the delegation of contracting authority; and the designation of 
contracting activities. He oversees the Army Industrial Base and 
Industrial Preparedness Programs and ensures the production readiness 
of weapon systems. The ASA(ALT) oversees all DA logistics management 
functions, including readiness, supply, services, maintenance, 
transportation, and related automated logistics systems management.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I bring nearly a quarter century of relevant experience as 
a successful test pilot, program manager of three major Air Force 
programs, an educator, an Inspector General and a Program Executive 
Officer. I fully understand the key processes employed within the 
Department of Defense, particularly in programmatic discipline, 
planning, resource allocation and acquisition. This in-depth 
understanding is derived from knowledge and experience, both in theory 
and in practice. I have successfully demonstrated this at all levels of 
government and industry, domestically and globally.
    I have an excitement of purpose, untiring energy, and a keen desire 
to continue to serve my country in this important capacity. If 
confirmed, my priority will be to ensure that the United States Army 
continues to be the most powerful, capable, and most respected Army the 
world has ever seen.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army for Acquisition, Logistics, and Technology?
    Answer. I am unaware of any actions that I need to take at this 
time.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If confirmed, I expect the Secretary of the Army will 
delegate to me and expect me to fully perform the functions of the Army 
Acquisition Executive, as well as the full complement of 
responsibilities previously described.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology?
    Answer. I believe that a successful transformation strategy and 
execution is one of the most significant challenges that faces the Army 
today. We must ensure that we meet the Army's needs to develop, 
acquire, and field the critical elements of the Objective Force, 
particularly its cornerstone, the Future Combat Systems (FCS). While 
this continues, the Army must maintain and sustain its current and 
near-term capability to meet contingencies. Another major challenge for 
the Army is posed by the impending loss, through retirements, of a 
significant percentage of resident expertise and corporate knowledge in 
the scientist and engineer (S&E) workforce, and the shortage of younger 
S&Es to whom this expertise would normally be transferred through 
training and mentoring.
    I agree with the Secretary of the Army that the greatest challenge 
the Army faces is change. The challenges the Army faces are similar to 
those of the other services as the Army collectively repositions 
organizations to overcome the threats our country faces. I feel that 
the Army must manage and maintain the momentum of the changes it has 
undertaken to assure its international preeminence in the 21st century. 
This will ensure America's ability to deter threats and defend our 
National security interests and to do it within the joint community.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. With regard to transformation, I believe that a focused, 
productive science and technology program is a prerequisite. The Army 
must maintain an adequately funded S&T program to focus on achieving 
the Army's transformation to the Objective Force. I understand that the 
single largest investment in S&T is for Future Combat Systems (FCS) 
with the goal to field FCS by the end of this decade. I have no 
preconceived plans for addressing these challenges. However, if 
confirmed, I will work closely with the Secretary of the Army, the 
Assistant Secretaries, and the Office of the Secretary of Defense (OSD) 
in a unified effort to transform the Army to meet America's future 
security needs. This includes attracting, training, and retaining 
America's best and brightest. It also mandates that we provide for 
their quality of life and well-being. The Army must assure its daily 
readiness, while transforming itself into an Army capable of dominance 
along the full spectrum of military operations in the 21st century.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Army 
for Acquisition, Logistics, and Technology?
    Answer. If confirmed, I would evaluate the specific roles and 
functions within the Office of the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology. It is premature to identify 
potential problems at this time.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will need to evaluate the specific issues 
and work with the Army staff and Secretariat as well as DOD to 
establish time lines as appropriate.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues, which must be addressed by the Assistant Secretary 
of the Army for Acquisition, Logistics, and Technology?
    Answer. I see three very broad priorities. Clearly, Army 
transformation is the keystone to maintaining and improving the Army's 
warfighting capability in the 21st century. That is the Army's 
paramount consideration. Within the transformation the Army must 
leverage new science and technology programs and initiatives to 
capitalize on emerging trends and breakthroughs. The Army must ensure 
it transforms into a force that will have the ability to respond 
effectively not only against today's terrorism and force protection 
threats, but also tomorrow's unknown threats.
    Underpinning this effort is the Army's Acquisition Corps. It must 
stand ready to assist in the transformation by developing new systems 
and capabilities in a timely manner while recapitalizing the Legacy 
Force. This will assure that the Army is able to project an ever-
improving full-spectrum combat capability. Critical to the Army's 
ability to effect this transformation is the health of the Army's 
Acquisition Corps. If confirmed, I must work to ensure the Army 
recruits, trains, and retains the required expertise, both military and 
civilian, that will support the transformation plan while positioning 
the workforce to successfully meet the challenges of the 21st century. 
I think the Army must also closely examine the continued viability of 
the United States industrial base to ensure that it does and will 
continue to meet current and potential wartime requirements.
                        army acquisition system
    Question. The Army recently approved a plan to reorganize its 
acquisition structure to centralize oversight of all Army program 
executive officers and program managers under the military deputy and 
the Army Acquisition Executive.
    What is your opinion of the Army plan to restructure its 
acquisition system? Do you have any specific concerns with the intended 
changes?
    Answer. I have only received an initial briefing on the acquisition 
reorganization plan, but I am pleased with the approach. One of the 
primary goals is to ensure a single manager is assigned to develop, 
produce, field, and sustain all systems in the Active and Reserve 
components, and to realign programs along commodity lines. For 
instance, the PEO for aviation will be responsible for the life cycle 
management of all aviation assets--not just those in active 
development. This focuses fiscal and manpower resources to develop and 
manage the fleet in the most cost effective manner. This appears to be 
a healthy approach to streamline the overall process and reduce 
redundant reporting and oversight layers in management. I have no 
specific concerns with the intended changes, and if confirmed, would 
continue to develop and refine the process.
    Question. Given your experience with other services' systems, would 
you, if confirmed, anticipate making any specific recommendations for 
further changes? If so, what changes would you recommend?
    Answer. I have a broad base of experience in the DOD acquisition 
process and major system acquisitions. If confirmed, I intend to apply 
that experience across the board, where it makes sense, to improve the 
Army processes and take advantage of other service successes, but at 
this time I have no specific recommendations for changes.
                  streamlining the acquisition process
    Question. Both Secretary of Defense Donald Rumsfeld and Under 
Secretary of Defense Pete Aldridge have indicated that they believe 
that there is a compelling need to streamline the acquisition process 
to further reduce the fielding time for new weapons systems and 
capabilities.
    In your view, what role should realistic testing play in the 
acquisition process prior to any decision to enter into high-rate 
production?
    Answer. I am concerned with the length of time that it takes to 
field new equipment. I agree that the acquisition process has to be 
streamlined. Likewise the way in which we integrate test and evaluation 
into this process must be improved. The way to accelerate acquisition 
programs is to integrate testing earlier in the development of new 
systems. In essence, we need to make testing part of the development 
process and not an addendum that scores the results of completed 
programs. Testing must be designed to examine design options, reduce 
risk and help move systems forward to successfully accelerate fielding.
    At each step in a progressive test process, the test conditions 
should be as realistic as possible consistent with the test objectives. 
Many years of experience attest to the fact that there is no substitute 
for realistic operational testing by real soldiers in a combat-like 
environment. This is what has led us today to an Army that has the best 
ground combat systems in the world. I understand the Abrams tank, the 
Bradley Fighting Vehicle and the Multiple Launch Rocket System (MLRS) 
are successes because the Army shook out the design and manufacturing 
problems in realistic operational tests before the systems went into 
full-rate production.
    Question. If you are confirmed as the Assistant Secretary of the 
Army for Acquisition, Logistics, and Technology, how would you propose 
to achieve an appropriate balance between the desire to reduce 
acquisition cycle times and the need to perform adequate operational 
testing?
    Answer. I do not see a conflict between reforming the acquisition 
process to accelerate fielding and the need to conduct realistic 
operational testing. A careful look at past programs will show that the 
conduct of operational testing consumes only a very short period in the 
development and fielding process. All early testing goes on concurrent 
with other development activities, and only the initial operational 
test and evaluation (IOT&E) must wait for a fully production-
representative system. With carefully laid out acquisition programs, 
operational testing need not cause delays in transitioning from low-
rate initial production to full-rate production.
    Question. How would you assess that the balance achieved is the 
appropriate one?
    Answer. I am not sure that a precise balance can be found, but I 
would measure the rates at which problems are being found. The degree 
to which problems are found early and do not occur later is the degree 
to which we are improving on the balance. If the occurrence of problems 
accelerates later in the program development, then we are clearly 
missing the mark.
    While we will never abandon realistic operational testing, we also 
know that we must fully integrate technical testing, modeling and 
simulation and other data sources to resolve as many issues as possible 
before we get to the IOT&E. If confirmed, I would try to leverage early 
and continuous testing and evaluation to make sure that systems are 
properly postured for success long before they are ready for fielding.
    Question. In comparison to other services with which you are 
familiar, do you believe that the Army has adequately funded its 
testing activities?
    Answer. It is premature for me to comment on the funding adequacy 
of the Army's comprehensive testing activities but I am aware that the 
funding profile for T&E in the Army has improved in the past 10 years. 
The infrastructure for DOD test ranges and much of the Army's 
instrumentation is aging and needs to be upgraded or replaced. 
Instrumentation must keep pace with the complexity and technical 
advances of the systems being tested. New instrumentation and test 
tools are needed to adequately test today's complex systems. Almost 
every major system now operates in a complex system of systems 
environment. This means that more sophisticated tests are required to 
truly create a ``realistic'' operational environment for validating 
system capabilities. We are relying heavily on models and simulations 
to help us create the realistic environments for these tests, but these 
new tools all take resources to develop and maintain. Balanced against 
its other priorities, I believe the Army is resourcing T&E as well as 
the other services.
                                comanche
    Question. Press reports indicate that the Army has decided to 
restructure the RAH-66 Comanche helicopter program, delaying initial 
operational capability by 2 years. If these reports are true, what is 
your understanding of:
    The new schedule?
    Answer. I understand that recent reviews of the Comanche 
Engineering and Manufacturing Development (EMD) program indicated that 
the program was experiencing both cost and schedule problems. I am told 
that the Army is currently in the process of developing alternatives 
that would implement a block upgrade strategy, maintain Objective Force 
linkages and address these concerns. Although adjustments to the 
program are imminent, I understand the Army leadership has not yet 
decided on a course of action, and remains firmly committed to the 
success of the Comanche program. I agree that it is a critical 
component in the Army transformation and the Objective Force.
    Question. The programmatic reasons for such a restructure?
    Answer. I am told the EMD contract is experiencing difficulties 
driven by system concurrency, system integration challenges, and 
underestimation of risk.
    Question. Any additional costs involved, and how the Army will pay 
for those costs?
    Answer. As stated previously, I understand the cost of the Comanche 
program adjustments may be resourced from within the current approved 
Comanche funding by using the delay in the production program to fund 
the increased development effort.
    I look forward to reviewing and contributing to this critical 
program, if confirmed.
                          future combat system
    Question. The Army currently has four teams working on the Future 
Combat System (FCS) under concept design agreements. The Army has 
announced its intention to solicit for a single lead systems integrator 
to take the system to a fiscal year 2006 production decision.
    In your opinion, what are the advantages and disadvantages of the 
Army's new acquisition approach for FCS?
    Answer. I understand there are two facets to the new acquisition 
approach--accelerating Milestone B by 3 years from fiscal year 2006 to 
fiscal year 2003, and placing the effort under Lead Systems Integrator 
(LSI) management. I agree that the major advantage of the program 
acceleration is that the Army may be able to field revolutionary new 
capabilities by the end of the decade. The FCS LSI will provide the 
Government with a capable industry partner, having total systems 
integration responsibility for designing, developing, producing, 
fielding and supporting the FCS system of systems.
    I agree that the disadvantage of program acceleration is that it 
may limit the Army's technology options for the Block I concept and 
increase program risk, but I believe this disadvantage can be mitigated 
by an iterative upgrade plan, providing enhancements for lethality, 
survivability, and so on. A potential disadvantage in having a single 
LSI is that the selection of an LSI can limit competition for new ideas 
from other major defense contractors in later phases of the program. I 
understand DARPA and the Army are addressing this issue by requiring a 
rigorous best value competition process for the selection of systems 
and subsystems, with government access to all data and concurrence in 
decisions.
    Question. In your opinion, how much risk is involved in such an 
acquisition schedule?
    Answer. DARPA and the Army have, in effect, asked the firms 
pursuing the Lead Systems Integrator role to balance technical and 
schedule risk in their proposed concepts in order to achieve an IOC 
within this decade. The winning LSI's concepts will mature in parallel 
with the evolving Operational Requirements Document to provide 
acceptable risk at MS B and beyond. If none of the answers meet the 
needs of the Army transformation, the Army should reconsider the Army's 
requirements.
    Question. If confirmed, how would you propose to divide the 
responsibilities for the FCS program between yourself and the Director 
of the Objective Force Task Force?
    Answer. The responsibilities of the Objective Force Task Force are 
spelled out by the Secretary of the Army--I do not believe there is 
duplication. ASA(ALT) is responsible for overall execution of the FCS 
acquisition program, to include science and technology efforts. The 
task force integrates, coordinates, and assesses efforts in concepts 
and requirements, S&T (including DARPA), and acquisition. Task force 
findings are provided to ASA(ALT) for consideration and action. If 
confirmed, I propose to continue, develop, and refine this 
relationship.
                            logistics reform
    Question. The 2001 Report to the President and Congress stated that 
logistics reform must move toward performance-based support and must 
link modern warfighting and business practices. To accomplish this 
fundamental transformation, the Department has developed a long-term 
logistics reform strategic plan, established a logistics architect to 
help guide the transformation effort, and begun the process of 
implementing new business strategies.
    In your view, what are the key factors shaping Army logistic 
modernization?
    Answer. The Army is in the process of transformation. As the Army 
moves toward an Objective Force, logistics modernization will enable 
the Army to field a force that is more responsive, deployable, agile, 
versatile, lethal, survivable, and sustainable. Army logistic 
modernization is a key component of that transformation process. The 
Army is changing the paradigm of a logistics system built on redundancy 
of mass to one based on velocity, mobility, and situational 
understanding. I understand three objectives drive the Army's 
modernization process. The first is to enhance strategic responsiveness 
to meet the time lines outlined in the Army vision. This is key to the 
Army's future relevance. The second is to reduce the size of the Combat 
Support/Combat Service Support footprint in the combat zone; this will 
enable Joint Force Commanders to maneuver without being tethered to a 
large supporting structure. Third, the Army must reduce the cost of 
logistics without reducing warfighting capability or readiness. 
Decreasing logistics demand is a major element of cutting cost and 
improving flexibility. The Army should consider efficiency, 
reliability, and deployability key performance parameters as the Army 
designs and fields new combat systems. The application of information 
and communications technologies to weapon systems design and logistics 
business processes is a key component in the Army's effort to create a 
more responsive logistics system. As the Army looks at the magnitude of 
the Army's business from installation to foxhole these are significant 
challenges but I think the Army has a duty to get it done.
    Question. In your view, what commercial market logistics practices 
should the Department of the Army consider in its logistics 
modernization program?
    Answer. There are many. Nothing drives innovation like a 
competitive market and we can learn a great deal about efficiency and 
effectives from the commercial sector. Several promising practices do 
come to mind: the Army has to use a longer-term business model in the 
acquisition process; the Army has to invest up front in reliability and 
predictability to reduce the cost of maintaining Army systems; the Army 
has to look at the total life-cycle cost of equipment when it is 
designed. While the Army has really improved its supply chain 
management with the Single Stock Fund program, the addition of 
commercially available automatic identification technology can pay big 
dividends in efficiency. The Army needs to leverage commercial sector 
transportation efficiencies, particularly the use of multi-modal 
systems that can reduce repackaging, material handling, and en-route 
damage as well as the costs associated with them. The commercial sector 
is doing some exciting things with embedded diagnostics and prognostics 
that really save equipment repair costs. The list goes on, but I think 
we can learn a lot from the commercial market and I will continue to 
look to world-class businesses for their logistics lessons, if 
confirmed.
    Question. In your view, is the privatization of the Army's 
logistics function a viable alternative?
    Answer. I think there is value in privatizing some of the Army's 
logistics functions but I'm hesitant to endorse it as a rule. I firmly 
believe that we must preserve a National Military Capability in 
critical logistics functions. Here again, you have to take a business 
view. While there are many functions and services the private sector 
can provide at a lower cost, that's not the entire equation. In many 
instances, the Army owns infrastructure just for the purpose of 
performing those same functions and services. When we add the cost of 
maintaining that to the lower privatized cost, we don't always see a 
savings. You have to have a plan to divest that infrastructure prior to 
outsourcing. We have to ask two questions when we move to the private 
sector. First, is readiness retained or improved? Second, is the total 
Army cost reduced? If the objective answer is yes to both questions, 
privatization is an alternative that should be considered.
                           munitions programs
    Question. The Army is considering the cancellation of several 
munitions programs including the TOW missile, the Hydra-70 rocket, the 
Remote Area Denial Artillery Munition, and the antipersonnel land mine 
alternatives.
    Given that the replacement systems to many of these programs are 
not yet fully developed and may not be available for many years, how 
would these cuts, if approved, impact the Army's ability to execute the 
National Military Strategy?
    Answer. I understand the Army's ability to execute the National 
Military Strategy will not be impacted should any of these programs be 
cancelled. I am told the RADAM and APL-A programs do not provide an 
enhanced warfighting capability above and beyond when the Army has 
today. I understand the Army will continue to produce the Hydra-70 
rocket in sufficient quantities to meet training requirements until the 
Advance Precision Kill Weapon System starts production in fiscal year 
2005. I also understand the Army has begun a dedicated stockpile 
management program to retain sufficient TOW 2B in the inventory under 
the Common Missile program which begins production later this decade.
                        army acquisition system
    Question. If confirmed as the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology, you will manage the Army 
Acquisition Corps and Army Acquisition Workforce.
    In your view, what steps should the Army take to improve overall 
management of its acquisition personnel?
    Answer. Simply put, I believe that we must refine the Army's 
existing management system to ensure the dedicated, professional 
members of the Army Acquisition Corps are fully trained, constantly 
challenged to innovate and streamline, rewarded for their efforts, and 
secure in their belief that we care about them and their families. We 
are all aware that this workforce has been significantly reduced over 
the past few years. While that was necessary and productive it also 
created a set of new challenges. For instance, I am concerned with the 
number of personnel that are or will be retirement eligible in the 
immediate future (2-5 years). In some career fields over 50 percent of 
the personnel fit this category. While the Army cannot say with 
certainty how many will actually retire, the potential loss of 
experience and expertise is enormous. This problem is further 
complicated because potential replacement personnel are reluctant to 
enter the Acquisition Corps because of the history of reductions. To 
answer these challenges, I understand the Army is working to stabilize 
the workforce, overcome the fear of further mass reductions, attract 
new employees from industry and academia, and, probably most important, 
enhance the training opportunities and professional growth of the 
current workforce. Lastly, in concert with DOD and the other services, 
I am gratified that the Army is developing a comprehensive strategic 
plan to address current problems and prepare the Army's acquisition 
workforce for the challenges of the 21st century.
    Question. How do you plan to ensure that the Army recruits, trains, 
and retains an acquisition workforce that will be able to operate in a 
21st century environment?
    Answer. The Army has numerous programs that provide advanced 
training and education opportunities for the current workforce. If 
confirmed, I intend to review these and, in concert with the Defense 
Acquisition University, training managers, and private institutions, 
ensure these existing programs are providing the right focus, right 
perspective, and right tools required to support the fundamental tenets 
of acquisition excellence. This will ensure the Army Acquisition Corps 
is poised to support Army transformation and continually improve the 
Acquisition System.
    We need to ensure that the Army's employees are working in a 
professional, safe and productive environment that enhances their 
desire to come to work. The Army, and indeed all the services, have an 
incredibly professional and dedicated workforce that continuously 
answers the call to public service. If confirmed, I intend to ensure 
the Army has the plans and programs that enhance skills, provide for 
the most effective and efficient use of resources and, most 
importantly, makes the Army's employees proud to be members of the U.S. 
Army.
    I understand the Army Acquisition Corps has already begun to 
develop a comprehensive program to attract new military and civilian 
employees with the necessary skills to support transformation and lay 
the foundation for the Army of the 21st century. If confirmed, I will 
do my best to ensure that the program is fully resourced and 
complemented by a responsive management system that allows us to 
swiftly react to changing priorities and technological evolution.
                       interservice relationships
    Question. In your view, are there areas in which the Department of 
the Army and the United States Marine Corps should more closely 
cooperate in the development of land and air capabilities?
    Answer. I am not familiar with all functional areas where the Army 
and Marine Corps are able to cooperatively develop capabilities, but I 
am aware of several cooperative successes. This October the Army began 
procuring the Marine Corps developed M107, 50 caliber, Sniper Rifle. 
Both marines and soldiers are using this rifle in Afghanistan. An 
excellent example of ongoing cooperation between the marines and Army 
is the development of the Joint Lightweight 155mm Towed Howitzer. In 
this program, the marines are developing the basic Howitzer while the 
Army develops the digital fire control for the Howitzer. A memorandum 
of agreement governs the program with the Navy and Army sharing 
management responsibility. The Navy Acquisition Executive is the 
milestone decision authority while the Army functions as the head of 
contracting agency. Additionally, the Marine Corps product manager is 
located at the Army's Picatinny Arsenal and oversight is shared by the 
Army Program Executive for Ground Combat Support and the Marine Corps 
Systems Commander. This has been a successful arrangement for both 
services.
    Question. If confirmed, what actions would you take to increase 
Army and Marine Corps joint program development?
    Answer. If confirmed, I would build on the relationship with the 
Navy Acquisition Executive and the Marine Corps from the Joint 
Lightweight 155mm Howitzer and Sniper Rifle and proactively review 
similar requirements across the other services to identify additional 
areas for cooperation.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                 armored security vehicle (asv) program
    1. Senator Landrieu. General Bolton, on July 10, 2001, I asked 
General Shinseki if media reports were true that the Army intended to 
terminate the armored security vehicle program at the end of fiscal 
year 2002.
    General Shinseki replied, ``The Army does not have plans to 
terminate the ASV program at the end of fiscal year 2002.'' Further, he 
stated, ``The current plan is to continue to field the ASV to MP 
units.''
    On the other hand, the November 21, 2001, issue of Jane's Defense 
Weekly reported that the ``Army canceled . . . the armored security 
vehicle, used by military police.''
    General Bolton, should I simply not trust everything I read from 
the British press; has the Army supplied me with improper information; 
or is this a sudden change of plans by the Army to finance the push 
toward transformation?
    General Bolton. The Army is currently procuring the ASV under a 5-
year multiyear contract with Textron Marine and Land Systems. The 
fiscal year 2002 President's Budget includes funding for the fourth 
year of the contract. The Army's intent is to support the ASV through 
to the conclusion of the multiyear at the end of fiscal year 2003. It 
would appear that the source of the data for the British Press was 
inaccurate in their understanding of Army leadership's decision 
relative to ASV.

    2. Senator Landrieu. What is the reason for the inconsistency?
    General Bolton. The Army's senior leadership has been consistent 
with Congress when asked its position concerning the ASV program--no 
contracts have been canceled.

                     science and technology funding
    3. Senator Landrieu. The Army's transformation will be strongly 
dependent on science and technology (S&T) and the new capabilities that 
emerge from those programs.
    Since your position will have oversight over Army science and 
technology programs, do you feel that the Army currently invests enough 
in research and development (R&D)?
    General Bolton. The Army has adequately funded its S&T program to 
focus on achieving the Army's transformation to the Objective Force. 
The Army's fiscal year 2002 budget request for S&T is $1.58 billion. 
This is an 18 percent increase over the fiscal year 2001 request and 
clear evidence of the Army's commitment to achieve Objective Force 
capabilities.

    4. Senator Landrieu. Secretary Rumsfeld has established a goal for 
science and technology investments Department-wide at 3 percent of the 
total DOD budget.
    Would you support the establishment of a similar goal for the Army?
    General Bolton. I support the DOD guidelines that have a goal of 
budgeting S&T as 3 percent of the overall DOD budget by 2007. The Army 
is committed to its transformation vision and S&T is at the center of 
our efforts to achieve Objective Force capabilities.

                        interagency coordination
    5. Senator Landrieu. The Army plays an important role in performing 
vital medical, chemical, and biological research for our country. Your 
researchers at Fort Detrick, Maryland, have been key players in the 
ongoing anthrax investigation.
    How will you work to ensure that the Army's expertise in these 
important scientific areas is available for our first responders, the 
Center for Disease Control, the Office of Homeland Security, and other 
Federal and local Government agencies?
    General Bolton. The Army coordinates with other Department of 
Defense, Federal, and local government agencies across all echelons. 
Army medical and scientific personnel are members of numerous response 
teams and interagency working groups. During the ongoing anthrax 
investigation, the scientists and command staff of the U.S. Army 
Medical Research Institute of Infectious Diseases at Fort Detrick 
actively participated in an interagency group formed to address the 
issues at hand. In addition, that organization and other Army 
laboratories have specific agreements with agencies such as the Centers 
for Disease Control and Prevention and the Federal Bureau of 
Investigation to provide expertise or perform analyses. Individual Army 
scientists routinely interact with colleagues throughout the scientific 
community by engaging in collaborative research efforts and 
participating in national and international scientific conferences. The 
Army medical community has been actively engaged in providing expertise 
to other agencies and to first responders through training and 
education courses such as the satellite broadcast of ``Biological and 
Chemical Warfare and Terrorism: Medical Issues and Response.'' Over the 
past several years, Army experts have served on intergovernmental teams 
to provide training and support to local authorities for major events 
such as the 1996 Olympics in Atlanta, Georgia, presidential nominating 
conventions, and others. The Army will continue appropriate 
participation in numerous interagency groups, and provide its 
outstanding support and expertise to other agencies.

   moving critical medical technologies through regulatory processes
    6. Senator Landrieu. The Army invests in a significant amount of 
research on new medical technologies--including bandages, drugs, 
vaccines, and decontamination agents. Some of these are especially 
critical as we work to improve our ability to respond to the threats of 
weapons of mass destruction. Unfortunately, many of our best 
technologies get caught up in slow and expensive regulatory processes 
established by the FDA and the EPA.
    How will you work to ensure that Army investments in critical new 
medical technologies can be moved quickly through these regulatory 
processes, so they can be used by our troops and the general public as 
soon as possible?
    General Bolton. The Army continues to emphasize the need to comply 
with FDA and other governmental agency regulatory guidance within its 
programs. These agencies provide a necessary and important quality 
control function that the Army both respects and demands. We do not 
want policy or perception to lead the American public to believe that 
soldiers are an experimental population. Rather, we strictly wish to 
enforce the same health and safety standards for soldiers. Only in a 
time of warfare and extreme need do we willingly take the calculated 
risks of using non-fully approved products, although we still gain FDA 
guidance for clinical protocols and informed consent.
    The best method to ensure we move quickly through the regulatory 
process is to communicate frequently with those agencies. The FDA is 
now a more open agency that supports frequent dialog. Through early 
discussions, such as pre-investigational new drug meetings, we can 
discuss our plans and trial methods with the FDA and modify them 
accordingly. This is especially important for products, such as 
critical chemical-biological defense drugs and vaccines that will rely 
on animal data and indirect measures, because human efficacy cannot be 
ethically obtained through clinical trials.
    Another means to increase the speed of the process is to team with 
industrial partners with greater experience in developing medical 
products. In the aftermath of September 11, 2001, the increased market 
potential for many of our medical product lines may provide greater 
financial incentive to more firms to develop and produce our products.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                        missile defense programs
    7. Senator Warner. General Bolton, the Ballistic Missile Defense 
Organization (BMDO) proposed to transfer the Patriot PAC-3 and Medium 
Extended Air Defense System (MEADS) programs to the Army and the Navy 
Area Defense to the Navy. Congress is likely to allow such transfers 
only after the director of BMDO establishes appropriate criteria to do 
so.
    Do you support the transfer of PAC-3 and MEADS to the Army?
    General Bolton. Yes. The Army is excited about the opportunity to 
manage the Patriot PAC-3 program. This represents a significant 
enhancement to the fielded Patriot system. Passing management of the 
program to the Army is the right thing to do at this point in the 
program's lifecycle. One of the benefits of the PAC-3 program is the 
use of the PAC-3 missile as the missile for the MEADS program. By doing 
so, we reduce the risk of the MEADS program and take advantage of PAC-
3's very capable and mature technology. However, the program must be 
fully funded before a transfer to the Army takes place. Specifically, 
the program must be funded to upgrade 10 active component Patriot 
Battalions and the Southwest Asia Patriot assets to the PAC-3 
configuration. Currently, the program is funded to upgrade 7 active 
component Battalions and the Southwest Asia Patriot assets. 
Additionally, the program must be funded to procure the required 2200 
PAC-3 missiles versus the 1159 for which the program is currently 
funded.
    Transfer of the MEADS program to the Army at this time is not 
recommended. The MEADS program is currently insufficiently mature in 
its acquisition cycle, does not have an approved program baseline, is 
an unstable international program and likely will incur significant 
cost growth. However, once the program has successfully accomplished 
Milestone C and begins entering operational testing, the program should 
begin the transfer to the Army and be fully funded to procure the 
required number of fire units and missiles.

    8. Senator Warner. What criteria would you recommend to the 
director of BMDO to guide such transfers in the future?
    General Bolton. The BMDO should continue management and development 
for programs in the areas of spiral/evolutionary development, technical 
insertion, reliability improvements and sustainment initiatives (i.e., 
reducing the logistical footprint) and provide a coordinated investment 
plan to Congress prior to transfer.
    BMDO, in coordination with the Army, should establish criteria for 
transition of programs to the services. Based upon cost, schedule, and 
technical risk/performance, BMDO should submit an agreed upon BMDO/Army 
transition plan to Congress prior to transfer. In the plan, BMDO should 
identify and fund any cost risk associated with the program.

                        directed energy weapons
    9. Senator Warner. The Army has been the lead agency in the 
development of the tactical high energy laser (THEL). Space and Missile 
Defense Command has expressed interest in pursuing a mobile version of 
THEL for air and missile defense, but the Army has not funded either 
THEL or a mobile THEL program.
    In your view, how important are directed energy weapons to the 
future of the Army?
    General Bolton. I believe that directed energy (DE) weapons have 
the potential to provide significant technological opportunities for 
the warfighter. These opportunities may allow the warfighter to achieve 
new and improved capabilities across a broad spectrum of missions that 
support the Army transformation strategy. The Army is currently 
exploring the potential of DE weapons to meet the future United States 
Army needs and joint service requirements from both ground and airborne 
platforms. These needs may include space control, special operations 
(ultra-precision engagements), military operations on urban terrain, 
countermine operations, destruction of unexploded ordnance, improved 
lethality for artillery projectiles, disruption of command and control 
systems, survivability of ground and air systems, and the suppression 
of enemy air defense.
    The Army has strategically invested in DE technologies that support 
our mission areas. We have developed a program plan to fund the follow-
on effort for a mobile version of the THEL demonstrator with Israeli 
cooperation. We have funded a solid-state laser effort to demonstrate a 
15-kilowatt high average power solid-state laser by 2004 and 100 
kilowatt by 2007 that experienced a congressional cut this year. The 
Army is also funding efforts to develop high-powered microwave systems 
for non-lethal, countermine, and weapons application. These efforts 
provide significant developmental milestones for DE weapons technology 
candidates to meet the Future Combat Systems and other Objective Force 
requirements.

    10. Senator Warner. Is Army investment in this area adequate?
    General Bolton. Directed energy (DE) technologies have the 
potential to provide the Army with dramatic leap-ahead capabilities 
that support many of the joint and Army visions and warfighting 
concepts of the 21st century. We strive within the current Army budget 
constraints and priorities to develop and exploit DE technologies 
consistent with our other priorities for the Objective Force.

                   science and technology investment
    11-12. Senator Warner. Secretary of Defense Rumsfeld has 
established an investment goal for the defense science and technology 
program to reach 3 percent of the total defense budget.
    If confirmed, would you set a similar goal for the Army science and 
technology program?
    If so, what time frame would you place on reaching this investment 
goal?
    General Bolton. I support the Department of Defense's guidelines 
that have a goal of budgeting S&T as 3 percent of the overall 
Department of Defense budget by 2007.

                         future combat systems
    13. Senator Warner. The Army is currently partnering with DARPA to 
conceptualize, develop, and field the Future Combat System. The Army 
recently accelerated the FCS effort by 2 years with the goal of 
equipping the first unit by fiscal year 2008.
    Is there adequate investment in the S&T program to meet this 
accelerated goal?
    General Bolton. Since the Army's decision to accelerate FCS post-
dated the President's Budget, additional S&T funds are required to meet 
the aggressive accelerated schedule. In order to determine the 
technical and financial impact of the FCS acceleration, my Deputy for 
Research and Technology has had an Independent Technology Assessment 
performed by technical experts from government, academia, and industry. 
The assessment concluded that more funds are needed in fiscal year 2002 
and 2003 to develop and mature critical technologies to achieve the 
initial capability desired (Block 1) for the First Unit Equipped in 
2008. The Army is reviewing all options to fund those shortfalls.

                         comanche restructuring
    14. Senator Warner. The Army recently announced that it has decided 
to restructure the Comanche helicopter program because the program 
encountered ``unacceptable risk'' and may be underfunded by as much as 
$1.5 billion. As a result, the initial operating capability will be 
pushed back to December 2008, about the same time as the Army intends 
to field the Future Combat System. This also coincides with the 
projected fielding of the Crusader System. The fielding of all of these 
systems will obviously stress the Army's ability to fund these 
programs.
    If confirmed, how will you deal with the Army's apparent funding 
shortfalls in these areas?
    General Bolton. This is probably the hardest question Secretary 
White and General Shinseki have to deal with in terms of balancing 
priorities. This is going to be a significant challenge for not only 
the Army, but also for the Department of Defense, because we are going 
to be competing with the other services for resources. I will work 
closely with the Army senior leadership to ensure we maintain a balance 
of our priorities that will permit the Army, to the greatest extent 
possible, to continue with the investments required to meet our future 
fielding commitments. It will be a significant challenge for the United 
States Army to achieve the balance of current readiness with the 
investments required for that future force. The Army must be prepared, 
with the support of Congress, to make those investments.

              army transformation (future combat system) 
    15. Senator Warner. The Future Combat System (FCS) will be the 
centerpiece of the Army's Objective Force. Four industry teams are 
currently designing concepts and conducting technology assessments for 
FCS. Until recently, the Army was considering retaining two of the four 
teams to continue the design work and to build models until fiscal year 
2006, when one team would be awarded a contract for development. Now, 
the Army has released a draft solicitation for a lead systems 
integrator to continue the work of the four industry teams.
    Do you agree with this approach?
    General Bolton. Yes, I agree with the approach. The Army's decision 
to develop a new acquisition strategy and FCS solicitation was based on 
the need to accelerate transformation and field the FCS in 2008. The 
Army, through its memorandum of agreement with Defense Advanced 
Research Projects Agency, is seeking a lead system integrator to 
execute this accelerated program.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                      comanche helicopter program
    16. Senator Thurmond. General Bolton, a problem with the 
modernization of our Armed Forces is the time it takes to bring a new 
system into the inventory. A prime example is the Army's Comanche 
helicopter program which recently underwent its sixth major revision 
since they awarded the contractor the development contract in 1991.
    What are your views regarding the Department's acquisition process 
and why does it take so long to bring a new system on line?
    General Bolton. The previous Under Secretary of Defense 
(Acquisition, Technology and Logistics), Dr. Gansler (among others 
within the Defense community), was also concerned about the length of 
time that it takes to bring a new system on line. To that end, in the 
latter half of 1999 he directed a complete rewrite of our Defense 
acquisition policies as contained within the Department of Defense 
(DOD) 5000-series set of documents. That effort took almost 2 years. It 
was completed in June 2001 with the final approval of the regulation, 
DOD 5000.2-R.
    Historically, it has taken all the services longer than anyone 
would wish to bring major systems to the field. However, given the 
initiatives (e.g., blocked requirements, evolutionary acquisition, and 
the use of more mature technology) incorporated in the new defense 
acquisition polices, I believe that we will begin to see a substantial 
improvement in those fielding times.

                            industrial base
    17-18. Senator Thurmond. The United States' defense industrial base 
has undergone a significant reduction since the end of the Cold War 
era. This shrinkage has occurred not only in the major weapons systems 
such as aircraft, but also in the small arms production base which now 
consists of only two major producers.
    Do you consider the decline of our defense industrial base an 
acceptable risk?
    What steps, if any, should we take to protect our industrial base?
    General Bolton. Yes, the consolidation has been necessary. The 
post-Cold War defense budget drawdown of the 1990s resulted in a 
significant consolidation of the U.S. defense industry--fewer prime 
contractors, rationalization of capacity in the industrial base, and 
substantial cost savings for the Department of Defense. The central 
tenet of my industrial capabilities-related policy is to seek to 
maintain a sufficient number of capable defense firms in core market 
sectors to ensure the competition critical to providing affordable, 
innovative defense products that meet the needs of the 21st century 
warfighter. It is a continuing challenge to meet this goal in today's 
smaller and more concentrated defense industrial structure. Prudent 
steps include a wide variety of actions. Examples include vigilant 
buying practices like limiting the use of restricted-source 
competitions. Instead we seek to attract more suppliers through reduced 
military specifications and use of broad market surveys. We can also 
oppose contractor teaming and formal business combinations, if that is 
in our best interest. On a case-by-case basis, when a thorough analysis 
supports it, we can intervene to protect critical, defense unique, 
endangered suppliers. 

                         buy america provisions
    19. Senator Thurmond. What are your views on the role of the ``Buy 
America'' provisions in protecting the industrial base? 
    General Bolton. Any preclusion of foreign firms from competing for 
Army contracts should only take place when U.S. national security 
interests would truly be threatened by foreign participation. We have 
adequate means to do this now on a case-by-case basis using exceptions 
to our requirements for full and open contracting. ``Buy American'' 
restrictions may invite retaliation and harm our industrial base. 
Finally, in all cases, I want to ensure that we access the very best 
technology for our soldiers.

                         technology development
    20. Senator Thurmond. Whenever the Army focuses on technology 
development, it is on the major weapons systems and not on the 
individual soldier's combat systems.
    What will be your focus regarding equipping the individual soldier 
to meet future threats?
    General Bolton. The Army vision recognizes that the soldier is the 
centerpiece of our transformation to the Objective Force. As such, we 
have focused our soldier system developments on integrating emerging 
new technologies into a multi-function capability. The result will be a 
soldier more lethal, sustainable and survivable, with significantly 
less weight to carry. Less weight also means increased soldier 
mobility, another desirable outcome. Our developments will aggressively 
address both future threats as well as the soldier's currently large 
logistics tail. Included in the above are the modeling and simulation, 
human science, and manpower and personnel integration efforts to ensure 
that the human factors aspects are considered in the design from the 
beginning. The Army's warrior systems modernization strategy (WSMS) 
integrates program planning to connect the entire Army's research and 
development (R&D) investment (including Defense Advanced Research 
Projects Agency leveraging) related to soldier systems across all 
phases of the R&D life-cycle.
    The Army strategy is highlighted by the Land Warrior (LW), a first 
generation integrated fighting system for the individual soldier that 
bridges to the Objective Force Warrior (OFW). The LW is an Acquisition 
Category II program designed to enhance the soldier's battlefield 
capabilities through the development and integration of a variety of 
Army components and technologies into a single ``system.'' The LW 
includes: a computer/radio subsystem; a global positioning system 
receiver; VHF and UHF radios; video capture capability; an integrated 
helmet assembly subsystem with heads-up display and image intensifier 
for night operations; a weapon subsystem with thermal weapon sight, 
close combat optic, video camera, laser rangefinder/digital compass, 
and an infrared laser aiming light; and protective clothing and 
individual equipment subsystem with load carrying equipment, body 
armor, a chemical/biological mask, and a laser detector.
    Emerging concepts for the Objective Force and the Future Combat 
Systems (FCS) recognize the soldier plays a central element in the FCS 
Unit of Action. The intent of OFW is to develop a formidable warrior in 
an invincible team, demonstrating unsurpassed individual and squad 
lethality; survivability; communications; and agility. The OFW science 
and technology program will provide the next generation of capabilities 
beyond LW. The OFW program uses a systems engineering, integrated 
approach to achieve new capabilities without overburdening the soldier. 
The program will develop a lightweight, stealthy soldier survivability 
system, integrated with multi-functional sensors, weapons and proactive 
medical capabilities. The OFW will have connectivity to other 
dismounted personnel and robotic air/ground platforms for improved 
situational understanding and effects. The OFW will be fully integrated 
with FCS. Additional benefits from applying a systems engineering 
approach to the soldier system are: shortened product development 
cycles; lower acquisition costs; and reductions in size, weight, and 
power requirements.
    The integration of continuous technology advances in command and 
control, tactical mobility, intelligence capabilities, and 
survivability will enable full-spectrum dominance at the individual and 
small unit level. These efforts support the Army vision to field a 
force that is responsive, deployable, agile, versatile, lethal, 
survivable, sustainable, and dominant at every point along the spectrum 
of operations, anywhere in the world.

                           army depot system
    21. Senator Thurmond. The Army maintains a significant depot system 
to maintain aging weapons systems and equipment. As more equipment 
comes due for recapitalization, will the depots be able to handle the 
increased workload?
    General Bolton. Yes. The Army Recapitalization Program is a key 
enabler of Army transformation that will allow us to transition to the 
Objective Force while maintaining a capable Interim Force to meet the 
Army's non-negotiable contract with the American people. Our organic 
base is up to the mission assigned to it. Depot capacity was one of the 
many factors reviewed when presenting the fleet recapitalization 
options to the senior Army leadership.

    22. Senator Thurmond. Would you consider transferring some of this 
work to the private sector?
    General Bolton. Those decisions have already been made. The VCSA 
directed early on in the Recapitalization Program to consider 
partnerships with industry. With public/private partnering, we get the 
best of both sectors, maintaining a viable industrial base in support 
of our weapon systems. Based on the end state capability required for 
the recapitalized systems and the time line needed to field the 
systems, public-private partnership arrangements were exploited and in 
some cases decisions were made to use the original equipment 
manufacturers. Some illustrative examples are the Bradley Fighting 
Vehicle and the Heavy Mobility Tactical Truck. Bottom line: the 
Recapitalization Program will aid in maintaining our skill levels in 
our depots, produce a stabilized workload, and foster sound government-
industry partnerships.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                         dod/gao investigations
    23. Senator Smith. Your promotion to Brigadier General was held up 
by Congress because of apparent procurement irregularities which were 
examined by both Department of Defense (IG) and GAO investigations.
    Can you comment on the results of both of those investigations, the 
issues at stake, your role in the controversy, what lessons you have 
drawn from this experience, and how this will affect your heading the 
Army procurement system?
    General Bolton. Much has been said about the allegations concerning 
my performance as the System Program Director of the Advanced Cruise 
Missile (ACM) System Program Office (SPO). During my Brigadier General 
Officer confirmation, an allegation was made that I had violated the 
Anti-Deficiency Act (ADA), and therefore should not be promoted to 
Brigadier General. Those allegations were made on the floor of the 
Senate in April/May 1993 and in several newspapers around the country. 
I became aware of this about the same time. It was alleged in a 
Department of Defense Inspector General (DOD IG) report and later by a 
member of the United States Senate, that I had violated the ADA. The 
report stated that when the ACM Program determined it would not have 
sufficient funds to complete the program, as planned several years in 
the future, it was antideficient. The Air Force did reclama the IG 
report and stated no ADA violation took place since the existing 
contract was fully funded for current activity and would be rebased for 
budget realities. The response was not accepted by the DOD IG.
    Shortly after the allegations were made, in 1993, the Air Force 
General Counsel was asked to render an opinion on this matter. Each 
General Counsel involved in this review quickly dismissed the 
possibility of an ADA violation. Further, the rendered opinion 
documented that the DOD IG explanation and interpretation of the 
alleged ADA violation was in error. From that point until my 
confirmation hearing on October 8, 1994, the focus of two Air Force, 
one GAO and one Comptroller General investigation were not so much the 
review of an ADA violation (the original and only formal allegation), 
but an examination of virtually every decision I made in the ACM 
Program during my 3-year tenure. The results . . . Nothing! No ADA, no 
improprieties, nothing. While I was pleased with the eventual outcome, 
I was very disappointed in what the reports did not say. Few Government 
Program Managers (PM) had undergone such a review, and to have such a 
finding is extraordinary. The reports failed to note that perhaps this 
PM and in particular, his staff should be praised for what they did. In 
one year this Government/contractor team took a severely poor 
performing program, one directed by Congress in law to be terminated if 
it did not drastically improve, and turned it completely around. When 
all was said and done, the program met all cost, schedule and 
performance requirements. This team provided the warfighters the most 
advanced, most accurate, most survivable cruise missile in the world. 
The ACM, I am led to believe, remains so today. Since none of the 
investigative reports recognized these achievements let me say at this 
time I am proud to have had the opportunity to lead such a fine team; 
both Government and contractor personnel. This team worked tirelessly 
to take a troubled program and turn it into a world-class military 
capability. It also demonstrated an age old lesson learned; namely, 
give good people a vision and the tools to reach it and anything is 
possible. Their effort is a model for the entire Department of Defense, 
and the reason I am where I am today. They are the finest, most 
dedicated and most professional people I have ever known. They and 
countless others like them throughout our acquisition, logistics and 
technology community, are the reason our United States Military remains 
the world's most capable, most powerful and most respected fighting 
force on the planet. It was my pleasure to serve them. I have continued 
to manage and lead as I did while in the ACM Program. I intend to do 
the same in the future for the Army.

                        interservice experience
    24. Senator Smith. Have you had any interservice experience with 
the Army? 
    General Bolton. I have been briefed on the current Army 
organizations and the ongoing reorganization. If I am confirmed, I will 
of course work closely with all of the Army in all facets as I perform 
my duties. To do that effectively will require I understand the 
relationships implied.

    25. Senator Smith. Do you have any knowledge of the relationships, 
policies, and organizational relationships existing today in the Army?
    General Bolton. I commanded the Defense Systems Management College 
at Fort Belvoir, Virginia for 3 years. I have gained good insight into 
the existing Army structures along with those of the other services and 
industry.

      program executive office (peo) air and missile defense (amd)
    26. Senator Smith. It is my understanding that the Army is 
considering double-hatting the PEO for Air and Missile Defense (PEO-
AMD) as well as the Deputy Commander of Space and Missile Defense 
Command (SMDC).
    Does this require a waiver of DOD regulations and has a waiver been 
granted?
    General Bolton. On 3 December 2001, General Shinseki approved the 
assignment of Brigadier General John Urias to the Program Executive 
Office for Air and Missile Defense in the position of Program Executive 
Officer, Air and Missile Defense/Deputy Commanding General for 
Research, Development and Acquisition, United States Army Space and 
Missile Defense Command. This was done in coordination with the acting 
Army Acquisition Executive and the Military Deputy; the Director, 
Ballistic Missile Defense Organization; and Commanding General United 
States Army (USASMDC). Due to the direct interdependency on USASMDC by 
PEO-AMD programs, this special arrangement was deemed to be in the best 
interest of both organizations. To help streamline his acquisition role 
as PEO, Brigadier General Urias' chain of supervision was designated as 
the ASA(ALT) MILDEP and ASA(ALT) (the normal rating chain for an Army 
PEO) with only letter input from the Commanding General, USASMDC. At 
the time, there was unanimous agreement that this assignment did not 
violate any statutory requirements, but there were varying opinions as 
to whether a waiver of Department of Defense (DOD) regulations was 
required. Having seen that this question still remains, I intend to 
formally seek DOD concurrence with this special arrangement. 

    27. Senator Smith. Does this imply that the PEO-AMD is not a full-
time job?
    General Bolton. No. If anything it shows the complexity of the 
duties associated with being a PEO who has ultimate responsibility for 
the acquisition programs assigned.

    28. Senator Smith. Will other Army PEOs be assigned additional 
responsibilities?
    General Bolton. Today's acquisition programs are directed, funded 
efforts designed to provide a new, improved, or continuing materiel, 
weapon or information system capability, or service, in response to a 
validated operational or business need. To facilitate decentralized 
decisionmaking, execution, and compliance with statutory requirements, 
the PEO structure aligns program management by weapon platform, 
recognizing customer base, equipment pairing and ultimate support to 
Army transformation. All PEOs are ultimately responsible for the life-
cycle management of all the programs assigned to them. This encompasses 
a myriad of responsibilities and duties. I do not consider these as 
``additional'' duties. They are all interconnected and required for a 
PEO to successfully manage his systems. However, under the Secretary of 
the Army's Headquarters, Department of the Army (HQDA) realignment 
initiatives, the objective of aligning missions and functions, 
streamlining decisionmaking, and passing HQDA responsibilities to the 
field, may require the assigning of additional responsibilities to all 
Army PEOs.
                                 ______
                                 
               Question Submitted by Senator Wayne Allard
                     army green ammunition program
    29. Senator Allard. General Bolton, the Silver Cartridge Company of 
Arvada, Colorado, and the Army have had discussions regarding the 
Army's Green Bullet program. I would like to hear again your assurance 
that the Department of Defense will properly deal with the Green Bullet 
patents and any private sector companies.
    General Bolton. The Army met with representatives of the Silver 
Cartridge Company in August 2001. It is Army policy to deal fairly with 
all contractors and subcontractors. The Army has reviewed the Silver 
Cartridge Company patents and claims, has met with legal counsel 
representing the Department of Energy (the independent materiel patent 
holder), and has conducted an independent patent infringement study. 
Information regarding submission of claims of patent infringement has 
been provided to Silver Cartridge Company.
    During prior meetings with Silver Cartridge Company and its legal  
counsel, Hogan and Hartson, Silver Cartridge Company agreed to forward, 
in writing, to the Army, specific information concerning alleged patent 
infringement. Once received, the Army will analyze that information, 
make new findings, and respond appropriately to Silver Cartridge 
Company.
                                 ______
                                 
Questions Submitted by Senator Carl Levin, on behalf of Senator Richard 
                               J. Durbin
                internal defense industrial capabilities
    30. Senator Durbin. General Bolton, do you believe that there is a 
minimum industrial capability that must be retained in-house so that 
the Defense Department can quickly respond to deployed forces and to 
provide the internal expertise to evaluate contractor proposals for 
industrial type work?
    General Bolton. The Department of Defense is authorized by law to 
retain a minimum essential nucleus of government-owned plants and 
production lines. The Army has been reducing this number since peaking 
during World War II. The Army will continue the review of its ordnance 
manufacturing centers to ensure we retain optimal capability.

                    industrial mobilization capacity
    31-32. Senator Durbin. The Industrial Mobilization Capacity budget 
line acts as a premium on a mobilization capability ``insurance 
policy'' at Army arsenals. Last year's Defense Authorization Act 
directed the Army to budget fully for Industrial Mobilization 
Capability. In spite of this legal requirement, the fiscal year 2002 
budget request did not fully fund Industrial Mobilization Capability. 
Do you support fully funding the Industrial Mobilization Capability 
budget line?
    Will you work to follow the public law in this matter and ensure 
this line is fully funded?
    General Bolton. I understand the requirements of section 342 of the 
Floyd D. Spence National Defense Authorization Act for fiscal year 
2001, and I will comply with the law. I will ensure the Department of 
the Army properly budgets for the unutilized and underutilized plant-
capacity costs of those facilities and equipment required for 
mobilization.

                       lightweight 155mm howitzer
    33. Senator Durbin. The joint Army/Marine Corps lightweight 155mm 
Howitzer program is in the development phase. Two consecutive reports 
by the General Accounting Office have shown that this program is 
overbudget, behind schedule and beset by serious technical problems. 
The Engineering and Manufacturing Development (EMD) guns have been 
determined not to be suitable for operational testing. Will you commit 
to review this program to see if you agree that it is time to pursue an 
alternative strategy, to include a side-by-side competition of existing 
Howitzers that offer a better chance of providing our fine soldiers 
with indirect fire power in a timely and cost effective manner?
    General Bolton. The Joint Lightweight 155 Millimeter Towed Howitzer 
is being developed in conjunction with the Marine Corps. Under the 
agreement between the two services governing this development program, 
the Marine Corps is responsible for development of the basic Howitzer 
and leads in procurement and the Army is responsible for developing and 
integrating the digital fire control onto the Howitzer and follows in 
production. Additionally, under the joint agreement, the Navy 
Acquisition Executive is the Milestone Decision Authority during the 
development. Because the Marine Corps is responsible for and solely 
funds the development of the basic Howitzer and decision authority 
resides with the Navy, I believe this question is more appropriately 
addressed by them.

                              arsenal act
    34. Senator Durbin. I am concerned that some recently drafted Army 
regulations (AR 700-90) may violate the Arsenal Act. I ask that you 
commit to investigate this issue and report back to the committee and 
to me within 2 months following your confirmation on whether the Army's 
regulations are in accordance with the Arsenal Act.
    General Bolton. All Army regulations undergo legal review before 
publication to ensure compliance with all statutory requirements, to 
include the Arsenal Act, Title 10. Pursuant to your request, I will 
look into the specific issues associated with the draft revision to AR 
700-90 and report back to you within 2 months.

                              m67 grenades
    35-37. Senator Durbin. A few months ago, the Army Material Command 
awarded Rock Island Arsenal a contract for M67 grenades. That award has 
now been put on hold while the Army Secretariat reviews this 
procurement. I believe this decision may violate both the spirit and 
intent of the Arsenal Act. What is the basis for this review and when 
do you think it will be resolved?
    What process and data will be used to make this decision?
    Do you favor awarding this contract to Rock Island Arsenal?
    General Bolton. The Army is in the process of determining the 
appropriate method for obtaining M67 grenade metal bodies to meet its 
requirements. This part has not been manufactured since 1993. In 
accordance with the Arsenal Act, the out of pocket costs for making 
this part at Rock Island Arsenal will be compared to the price the Army 
would pay for industry to provide them. Neither Rock Island nor 
industry currently has a contract for this item. It is anticipated that 
the Army will be able to compare a neutrally developed independent 
Government cost estimate portraying Rock Island Arsenal's costs to 
those being offered by industry in response to an existing solicitation 
for the Marine Corps in late January 2002. At that time, if confirmed, 
I will provide you with an analysis and the Army's intent.

                              120mm mortar
    38. Senator Durbin. We understand that the Marine Corps is testing 
an existing rifled 120mm mortar system. We believe this new mortar 
would offer the new Army interim brigades more firepower combined with 
a much better shoot and scoot capability. Would you review this with 
the Marine Corps to see if you should change the currently planned 
mortar for the Army interim brigades?
    General Bolton. We completed our review with the Marine Corps and 
found the existing rifled mortar system did not meet our requirements.

    39. Senator Durbin. Would you inform Congress of the results of 
your review not later than February 1, 2002?
    General Bolton. Yes.
                                 ______
                                 
    [The nomination reference of Maj. Gen. Claude M. Bolton, 
Jr., follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  November 8, 2001.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Maj. Gen. Claude M. Bolton, Jr., of Florida, to be an Assistant 
Secretary of the Army, vice Paul J. Hoeper.
                                 ______
                                 
    [The biographical sketch of Maj. Gen. Claude M. Bolton, 
Jr., which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of Maj. Gen. Claude M. Bolton, Jr.
    Claude M. Bolton, Jr., nominated by the President to be Assistant 
Secretary of the Army for Acquisition, Logistics, and Technology, 
served over 32 years on active duty with the United States Air Force. A 
command pilot with more than 2,700 flying hours in more than 40 
different aircraft, Mr. Bolton flew 232 combat missions in the Vietnam 
War, 40 of them over North Vietnam. He was a test pilot for the F-4, F-
111 and the F-16. Among his decorations are the Defense Distinguished 
Service Medal, the Legion of Merit, the Distinguished Flying Cross with 
oak leaf cluster, and Air Medal with 16 oak leaf clusters.
    Mr. Bolton's last assignment was Commander, Air Force Security 
Assistance Center, Headquarters, Air Force Materiel Command, at Wright-
Patterson Air Force Base, Ohio, where he managed foreign military sales 
programs exceeding $60 billion that supported more than 80 foreign 
countries. His responsibilities also included managing the command's 
international cooperative programs and its foreign disclosure policy.
    Prior to commanding the Air Force Security Assistance Center, he 
was the program executive officer for Air Force fighter and bomber 
programs in the Office of the Assistant Secretary of the Air Force for 
Acquisition, where he served earlier in his career as a special 
assistant to the Assistant Secretary. Mr. Bolton was the first program 
manager for the Advanced Tactical Fighter Technologies Program which 
evolved into the F-22 System Program Office. His other acquisition 
assignments have included service as program director for the Advanced 
Cruise Missile System Program Office; deputy program director for the 
B-2 System Program Office; F-16 program element monitor and division 
chief, Low Observable Vehicle Division in the Office of Special 
Programs; AFMC director of requirements; and AFMC inspector general. A 
graduate of the program manager's course at the Defense Systems 
Management College, Mr. Bolton also served as its commandant.
    Mr. Bolton graduated from the University of Nebraska in 1969, where 
he majored in electrical engineering and was a distinguished graduate 
in the Air Force ROTC program. He later earned a master's degree in 
management from Troy State University. He is a 1986 graduate of the 
Naval War College where he later earned a master's degree in national 
security and strategic studies.
    Mr. Bolton is married to the former Linda Roll of Alma, Nebraska. 
They have two lovely daughters, Cynthia and Jennifer.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Maj. Gen. 
Claude M. Bolton, Jr., in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Claude M. Bolton, Jr.

    2. Position to which nominated:
    Assistant Secretary of the Army for Acquisition, Logistics, and 
Technology.

    3. Date of nomination:
    November 8, 2001.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 13, 1945; Sioux City, IA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda I. Roll.

    7. Names and ages of children:
    Cynthia J. Bolton, 31; Jennifer A. Bolton, 28.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Nebraska, 1964-1969, BS, Electrical Engineering.
    Troy State University, 1975-1978, Masters, Management.
    Naval War College, 1985-1986, Masters, National Security and 
Strategic Studies.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    October 2000 to Present: Air Force Security Assistance Center 
Commander, Wright-Patterson AFB, OH (Major General, USAF).
    June 1998 to October 2000: Program Executive Officer for Air Force 
Fighter and Bomber Programs, Pentagon, Washington, DC (Major General, 
USAF).
    June 1996 to June 1998: Director of Requirements, Wright-Patterson 
AFB, OH (Major General, USAF).
    March 1996 to June 1996: Special Assistant to Assistant Secretary 
of the Air Force for Acquisition, Pentagon, Washington, DC (Brigadier 
General, USAF).
    March 1993 to March 1996: Defense Systems Management College 
Commandant, Fort Belvior, VA (Brigadier General, USAF).
    September 1992 to March 1993: Inspector General, HQ Air Force 
Materiel Command, Wright-Patterson AFB, OH (Colonel, USAF).
    August 1989 to September 1992: System Program Director, Advanced 
Cruise Missile Program, Wright-Patterson AFB, OH (Colonel, USAF).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    No additional.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Member of the Board of Trustees for Girls' and Boys' Town (The 
Original Father Flanagan's Boys' Home), Omaha, NE.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Professional--Sigma Tau.
    Honorary--Eta Kappa Nu, Pi Mu Epsilon, Phi Eta Sigma, Innocents 
Society.
    Kappa Alpha Psi--Social.
    Distinguished AFROTC Graduate.
    Defense Distinguished Service Medal with oak leaf cluster.
    Legion of Merit.
    Distinguished Flying Cross with oak leaf cluster.
    Meritorious Service Medal with two oak leaf clusters.
    Air Medal with 16 oak leaf clusters.
    Vietnam Service Medal with three service stars.
    Republic of Vietnam Gallantry Cross.
    Republic of Vietnam Campaign Medal.
    Chuck Jones Development Planner Award winner, Wright-Patterson AFB.
    Macolm Baldrige Quality Award/Finalist, Educational Pilot, Defense 
Systems Management College.
    ``Masters'' Honoree, University of Nebraska, 1999.
    Hall of Fame Inductee (first inductee), AFROTC, University of 
Nebraska.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Program Managers Magazine, Defense Systems Management College, 
Commandant's Commentary.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to Testify Before Senate Committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                    Maj. Gen. Claude M. Bolton, Jr.
    This 9th day of November, 2001.

    [The nomination of Maj. Gen. Claude M. Bolton, Jr., was 
reported to the Senate by Senator Ben Nelson on December 6, 
2001, with the recommendation that the nomination be confirmed. 
The nomination was confirmed by the Senate on December 20, 
2001.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the Committee by the Executive Branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20----.

                                 <all>
      

</pre></body></html>
